<html>
<title> - NOMINATION HEARINGS OF THE 115TH CONGRESS-FIRST SESSION</title>
<body><pre>[Senate Hearing 115-413]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-413

                       NOMINATION HEARINGS OF THE
                      115TH CONGRESS-FIRST SESSION

=======================================================================

                                HEARINGS


                               BEFORE THE


                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS



                             FIRST SESSION

                               ----------                              

                   JANUARY 3, 2017 TO JANUARY 3, 2018

                               ----------    
                               
 Printed for the use of the Committee on Foreign Relations
                               
                               
                               
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       
       
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        




                                                        S. Hrg. 115-413
 
                       NOMINATION HEARINGS OF THE
                      115TH CONGRESS-FIRST SESSION

=======================================================================

                                HEARINGS

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                   JANUARY 3, 2017 TO JANUARY 3, 2018

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        
        
                            

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-623 PDF             WASHINGTON : 2018              



        


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              

The nominees' responses to additional questions and any other 
  additional material submitted for the record are located at the 
  end of each hearing transcript.
                              ----------                              
                                                                   Page

Wednesday, January 11, 2017......................................    na

    Tillerson, Rex, to be Secretary of State, transcript printed 
      under seperate cover, S. Hrg. 115-4........................    na

Wednesday, January 18, 2017......................................    na

    Haley, Gov. Nimrata ``Nikki,'' to be Ambassador to the United 
      Nations, transcript printed under seperate cover, S. Hrg. 
      115-345....................................................    na

Thursday, February 16, 2017......................................     1

    Friedman, David, of New York, to be Ambassador to Israel.....     9

Wednesday, April 26, 2017........................................    71

    Mushingi, Hon. Tulinabo Salama, of Virginia, to be Ambassador 
      to the Republic of Senegal and to the Republic of Guinea-
      Bissau.....................................................    73
    Haskell, Todd Philip, of Florida, to be Ambassador to the 
      Republic of the Congo......................................    75

Tuesday, May 2, 2017.............................................    93

    Branstad, Hon. Terry, of Iowa, to be Ambassador to the 
      People's Republic of China.................................    98

Tuesday, May 9, 2017.............................................   145

    Sullivan, Hon. John J., of Maryland, to be Deputy Secretary 
      of State...................................................   149

Wednesday, May 17, 2017..........................................   207

    Brown, Scott P., of New Hampshire, to be Ambassador to New 
      Zealand, and to the Independent State of Samoa.............   211

Thursday, May 18, 2017...........................................   227

    Hagerty, William Francis IV, of Tennessee, to be Ambassador 
      to Japan...................................................   231

Thursday, June 15, 2017..........................................   259

    Green, Mark Andrew, of Wisconsin, to be Administrator of the 
      U.S. Agency for International Development..................   266

Tuesday, July 11, 2017...........................................   303

    Bohigian, Hon. David Steele, of Missouri, to be Executive 
      Vice President of the Overseas Private Investment 
      Corporation................................................   307
    Washburne, Ray, of Texas, to be President of the Overseas 
      Private Investment Corporation.............................   309
    Currie, Kelley Eckels, of Georgia, to be U.S. Representative 
      on the Economic and Social Council of the United Nations...   312
    Murray, Jay Patrick, of Virginia, to be an Alternate 
      Representative for Special Political Affairs in the United 
      Nations....................................................   315

                                 (iii)

Tuesday, July 18, 2017...........................................   345

    Gingrich, Callista L., of Virginia, to be Ambassador to the 
      Holy See...................................................   349
    Sales, Nathan Alexander, of Ohio, to be Coordinator for 
      Counterterrorism, Department of State......................   352
    Glass, George Edward, of Oregon, to be Ambassador to the 
      Portuguese Republic........................................   355
    Risch, Carl C., of Pennsylvania, to be an Assistant Secretary 
      of State, Consular Affairs.................................   358

Wednesday, July 19, 2017.........................................   389

    Arreaga, Hon. Luis E., of Virginia, to be Ambassador to the 
      Republic of Guatemala......................................   389
    Day, Sharon, of Florida, to be Ambassador to the Republic of 
      Costa Rica.................................................   391
    Urs, Krishna R., of Connecticut, to be Ambassador to the 
      Republic of Peru...........................................   393

Thursday, July 20, 2017..........................................   415

    Hutchison, Hon. Kay Bailey, of Texas, to be U.S. Permanent 
      Representative on The Council of the North Atlantic Treaty 
      Organization...............................................   425
    Craft, Kelly Knight, of Kentucky, to be Ambassador to Canada.   429
    Johnson, Robert Wood IV, of New York, to be Ambassador to the 
      United Kingdom of Great Britain and Northern Ireland.......   432
    Eisenberg, Lewis M., of Florida, to be Ambassador to the 
      Italian Republic and to the Republic of San Marino.........   434
    McFarland, Kathleen Troia, of New York, to be Ambassador to 
      the Republic of Singapore..................................   437

Wednesday, July 26, 2017.........................................   491

     Raynor, Hon. Michael Arthur, of Maryland, to be Ambassador 
      to the Federal Democratic Republic of Ethiopia.............   492
    Brewer, Maria E., of Indiana, to be Ambassador to the 
      Republic of Sierra Leone...................................   494
    Desrocher, John P., of New York, to be Ambassador to the 
      People's Democratic Republic of Algeria....................   496

Tuesday, August 1, 2017..........................................   517

    King, Stephen B., of Wisconsin, to be Ambassador to the Czech 
      Republic...................................................   518

Tuesday, September 12, 2017......................................   531

    Ueland, Eric M., of Oregon, to be an Under Secretary of State 
      (Management)...............................................   536
    Bass, Hon. John R., of New York, to be Ambassador to the 
      Islamic Republic of Afghanistan............................   556
    Siberell, Justin Hicks, of Maryland, Nominee to be Ambassador 
      to the Kingdom of Bahrain..................................   560
    Dowd, J. Steven, of Florida, to be U.S. Director of the 
      African Development Bank for a Term of 5 Years.............   563

Tuesday, September 19, 2017......................................   617

    Huntsman,Hon. Jon M. Jr., of Utah, to be Ambassador to the 
      Russian Federation State...................................   624
    Mitchell, A. Wess, of Virginia, to be an Assistant Secretary 
      of State (European and Eurasian Affairs)...................   640

Wednesday, September 27, 2017, (a.m.)............................   693

    Kritenbrink, Daniel J., of Virginia, to be Ambassador to the 
      Socialist Republic of Vietnam..............................   695
    Fitzpatrick, Kathleen M., of the District of Columbia, to be 
      Ambassador to the Democratic Republic of Timor-Leste.......   698

Wednesday, September 27, 2017 (p.m.).............................   715

    Hoekstra, Hon. Peter, of Michigan, to be Ambassador to the 
      Kingdom of the Netherlands.................................   718
    Buchan, Richard Duke, III, of Florida, to be Ambassador to 
      the Kingdom of Spain.......................................   721
    Grenell, Richard, of California, to be Ambassador to the 
      Federal Republic of Germany................................   725
    McCourt, Jamie, of California, to be Ambassador to the French 
      Republic, and to the Principality of Monaco................   728
    McMullen, Edward T. Jr., of South Carolina, to be Ambassador 
      to the Swiss Confederation, and to the Principality of 
      Liechtenstein..............................................   732

Tuesday, October 3, 2017 (a.m.)..................................   763

    Juster, Hon. Kenneth Ian, of New York, to be Ambassador to 
      the Republic of India......................................   767

Tuesday, October 3, 2017 (p.m.)..................................   789

    Andre, Hon. Larry Edward, of Texas, to be Ambassador to the 
      Republic of Djibouti.......................................   792
    Barlerin, Peter Henry, of Colorado, to be Ambassador to 
      Republic of Cameroon.......................................   794
    Whitaker, Eric P., of Illinois, to be Ambassador to the 
      Republic of Niger..........................................   796
    Dodman, Michael James, of New York, to be Ambassador to the 
      Islamic Republic of Mauritania.............................   807
    Fite, Nina Maria, of Pennsylvania, to be Ambassador to the 
      Republic of Angola.........................................   810
    Foote, Daniel L., of New York, to be Ambassador to the 
      Republic of Zambia.........................................   813
    Reimer, David Dale, of Ohio, to be Ambassador to the Republic 
      of Mauritius and the Republic of Seychelles................   815

Wednesday, October 4, 2017.......................................   849

    Sison, Michele Jeanne, of Maryland, to be Ambassador to the 
      Republic of Haiti..........................................   851
    Brownback, Hon. Samuel Dale, of Kansas, to be Ambassador-at-
      Large for International Religious Freedom..................   855

Thursday, October 5, 2017........................................   883

    Sands, Carla, of California, to be Ambassador to the Kingdom 
      of Denmark.................................................   884
    Kohorst, W. Robert, of California, to be Ambassador to the 
      Republic of Croatia........................................   887

Wednesday, October 18, 2017......................................   903

    Carter, Thomas, of South Carolina, to be U.S. Representative 
      on the Council of the International Civil Aviation 
      Organization...............................................   905
    Newstead, Jennifer Gillian, of New York, to be Legal Adviser 
      of the Department of State.................................   907
    Singh, Manisha, of Florida, to be an Assistant Secretary of 
      State (Economic and Business Affairs)......................   910
    Evanoff, Michael T., of Arkansas, to be an Assistant 
      Secretary of State (Diplomatic Security)...................   911

Wednesday, November 1, 2017......................................   955

    Goldstein, Irwin Steven, of New York, to be Under Secretary 
      of State (Public Diplomacy)................................   957
    Lawler, Sean P., of Maryland, to be Chief of Protocol of the 
      Department of State........................................   960
    Johnson, Lisa A., of Washington, to be Ambassador to the 
      Republic of Namibia........................................   962
    Gonzales, Rebecca Eliza, of Texas, to be Ambassador to the 
      Kingdom of Lesotho.........................................   964
    Evans, James Randolph, of Georgia, to be Ambassador To 
      Luxembourg.................................................   966

Tuesday, November 28, 2017.......................................  1013

    Poblete, Yleem D.S., Ph.D., of Virginia, to be an Assistant 
      Secretary of State (Verification and Compliance)...........  1019
    Ford, Christopher Ashley, D.Phil., of Maryland, to be an 
      Assistant Secretary of State (International Security and 
      Non-Proliferation).........................................  1022
Thursday, November 30, 2017......................................  1071

    Bierman, Hon. Brock D., of Virginia, to be an Assistant 
      Administrator of the United States Agency For International 
      Development................................................  1076
    Braithwaite, Rear Admiral Kenneth J., USN (Ret), of 
      Pennsylvania, to be Ambassador to the Kingdom of Norway....  1080
    Trujillo, Hon. Carlos, of Florida, to be the Permanent U.S. 
      Representative to the Organization of American States......  1083
    McClenny, M. Lee, of Washington, to be Ambassador to the 
      Republic of Paraguay.......................................  1086

Tuesday, December 19, 2017.......................................  1123

    Vrooman, Peter Hendrick, of New York, to be Ambassador to the 
      Republic of Rwanda.........................................  1125
    Danies, Joel, of Maryland, to be Ambassador to the Gabonese 
      Republic and to the Democratic Republic of Sao Tome and 
      Principe...................................................  1128

                                APPENDIX

Alphabetical listing of nominees considered by the committee, 
  including important dates......................................  1151




  


                               NOMINATION

                              ----------                              


                      THURSDAY, FEBRUARY 16, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
Room 419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Portman, 
Paul, Cardin, Menendez, Shaheen, Coons, Udall, Murphy, Kaine, 
Markey, Merkley, and Booker.
    Also Present: Senator Graham.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We welcome Mr. David Friedman, who has been nominated to be 
Ambassador to Israel. We also welcome two very distinguished 
guests, two Members--a Member and a former Member--that have 
tremendous respect by all of us up here. We thank you for 
coming. Ben and I are going to defer our opening comments so 
you do not have to sit through that, and we will let you go 
ahead and introduce.
    I talked to some of the folks here that from time to time 
have a tendency to want to interrupt the meeting a little bit. 
In the past I have asked some people to be removed, and as it 
turned out, they were arrested. I was able to get them un-
arrested---- [Laughter.]
    The Chairman [continuing]. But I do not have that ability 
anymore. The protocol is that if you are asked to be removed 
from a meeting, you are arrested, and I do not have the ability 
anymore to keep that from happening. So, if you would, please 
do not put yourself in a position to need to be removed.
    We thank everybody for being here. It is part of our 
democratic process that people participate. We are glad to have 
everyone here.
    And with that, let me turn to a friend of all of us, the 
great Senator from the State of South Carolina, Senator Lindsey 
Graham.

               STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Well, thank you.
    To the protesters, I am a lawyer. I come cheap if you do 
get arrested. [Laughter.]
    Senator Graham. But you will probably get what you pay for. 
[Laughter.]
    Senator Menendez. Mr. Chairman, nobody believes he comes 
cheap. [Laughter.]
    Senator Graham. Speaking of lawyers, Mr. Friedman is 
described as a deal-making bankruptcy lawyer and also a very 
good trial lawyer. I cannot think of a better choice to cover 
the Mid-East than a bankruptcy lawyer except maybe a divorce 
lawyer. [Laughter.]
    So I have not known Mr. Friedman that long personally, but 
I have known him by reputation as being a very passionate 
supporter of the State of Israel. Everybody up here I think 
deserves to be described as pro-Israel. Having said that, that 
does not mean we cannot disagree as to what that means. I think 
most of us agree that when the U.N. has 20 resolutions against 
Israel for their settlement policy and six against the world at 
large, they have sort of lost their way.
    But I think it is okay to tell Israel be careful about 
settlements. The President said that. And I think a lot of us 
would agree that Israel is the only democracy in a very 
troubled region, and they are not beyond criticism. You can be 
pro-Israel and criticize the Government or the policies of any 
particular government. I understand that, and that is what 
makes us a unique friend to Israel. Sometimes you have to tell 
your friends things they need to hear.
    So settlement policy is a contentious issue. We have 
different views about it, but I think the President struck a 
good tone yesterday.
    The pro-Israel community, the American Jewish community is 
divided like every other group in America. We have AIPAC, we 
have J Street, and we have the RJC. All of them believe they 
are pro-Israel and the other group is a little crazy. 
[Laughter.]
    Senator Graham. That is why we have so many different 
views.
    Mr. Friedman is very passionate. He has said some things 
that I do not agree with, but I never doubt that he did it 
based on what he thought was the right thing to say at the 
time. And what is encouraging to me that Mr. Friedman has said, 
``Maybe I need to watch my rhetoric.'' That is why I believe he 
is the right guy at the right time. He will be Trump's voice. 
Trump won the election. Secretary Clinton would not have picked 
Mr. Friedman. Donald Trump picked him because I believe 
President Trump understands that Mr. Friedman would be a voice 
consistent with Trump's view of the U.S.-Israel relationship, 
that he is qualified, that he has the experience and the 
passion and the skill set to be America's voice, not just 
Trump's voice.
    To my Democratic colleagues, I know what it is like to be 
disappointed in an election outcome. I have not voted for a 
President who has won in 12 years. But I find myself supporting 
people for jobs that I would not have picked. The one thing I 
would say about David Friedman, that he loves the United States 
and Israel with all of his heart and all of his soul, that he 
has been effective as a lawyer, that his reputation as a lawyer 
is beyond reproach.
    And what does a good lawyer do? A good lawyer tries to take 
people with differing views to get to a win-win situation, to 
represent your client with passion but also to understand that 
the other side has an interest, too. When you look at his 
career as a lawyer, those on the other side of Mr. Friedman 
would say that he is an honest, ethical, capable advocate that 
you can do business with. I believe he will bring that skill 
set to the job of U.S. Ambassador to Israel, the only democracy 
in a region that is falling apart. If Israel ever needed a 
strong voice in her court, it is now. If Israel ever needed a 
unified Congress, it is now. Israel can be criticized, but 
Israel needs to be supported, and Mr. Friedman will get that 
support. Thank you.
    The Chairman. Thank you very much. And now, Senator, that 
again is loved on both sides of the aisle and missed, was a 
strong and great voice for our country's national security and 
foreign policy issues. We welcome Joe Lieberman. And thank you 
for being here today.

              STATEMENT OF HON. JOSEPH LIEBERMAN, 
              FORMER U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thanks so very much, Mr. Chairman, for 
your generous words. I do not know about Lindsey, but I was 
actually looking forward to the opening statement you and 
Senator Cardin were going to make but---- [Laughter.]
    The Chairman. You still act like a politician. [Laughter.]
    Senator Lieberman [continuing]. You know, as my wife says, 
I have an incurable disease so---- [Laughter.]
    Senator Lieberman [continuing]. Anyway, like all of our 
spouses.
    Chairman Corker and Senator Cardin, members of the 
committee, former colleagues, friends, I am really delighted to 
be here this morning to introduce my friend David Friedman, who 
of course is before the committee as the President's nominee to 
be the next Ambassador to Israel.
    After I left the Senate in 2013, I became senior counsel at 
the law firm of Kasowitz Benson Torres & Friedman, as in David 
Friedman. Probably neither David or I thought that we would 
both be here this morning at that time when I joined the firm, 
but I have in those four years come to know David first as a 
legal colleague and I will say, too, that I have learned a lot 
from him. He has extraordinary professional skills that will 
serve him well as Ambassador. And I am thinking of really great 
intelligence, a warm personality that engages and engenders 
trust, and an impressive ability to advocate a cause but also 
to know when to compromise and negotiate so that all parties 
can walk away from a dispute feeling that they have 
accomplished something.
    Now that I say that, I may want to suggest that Congress 
retain David for mediating purposes. Okay. I could not resist 
that.
    Beyond our association in the law firm, David Friedman and 
I have become really good personal friends. And if--and what 
might be called a point of personal privilege, I want to 
explain how that happened. For three years our youngest 
daughter Hani, who some of you may remember, lived with her 
husband and growing family in Woodmere, New York. At the time 
they resided in a two-bedroom apartment with one bedroom, Hani, 
Daniel, and their two boys who then became three boys, thank 
God.
    When Hadassah my wife and I visited, the only place we 
could sleep was on a sofa bed in the living room. I would say 
diplomatically it was not comfortable. And now, I confess my 
own shortcomings. It was I, not my sainted wife, who said we 
have got to find another place nearby to stay when we are 
visiting our children and grandchildren.
    It happens that David and Tammy Friedman live a 10-minute 
walk from where our children lived, and they have a great guest 
suite. That, as they say in the movie, was the beginning of a 
beautiful friendship.
    During those three years--incidentally, my children are now 
in Pikesville, the birthplace and growing place in Baltimore of 
Senator Cardin. So----
    Senator Cardin. They chose well.
    Senator Lieberman [continuing]. They chose well, and they 
have a much bigger house and we have our own room now. 
[Laughter.]
    Senator Lieberman. I thought you were going to say 
something, Mr. Chairman.
    The Chairman. No. No.
    Senator Lieberman. During these three years, we shared a 
lot of time and a lot of Sabbaths together with David and Tammy 
Friedman, and we got to know them very well. They are genuinely 
devoted to each other and their family. They have the best of 
values and live by them. Tammy is a bright, compassionate, very 
likeable person who will be, I believe, as great a partner in 
diplomacy if David is confirmed as Ambassador as she has been a 
partner to him in life.
    During those weekends with the Friedmans, David and I had a 
lot of time to talk about things. And I reached some 
conclusions about him that I think are relevant to his 
nomination to be Ambassador that I want to share in just a few 
sentences.
    First, he is a patriotic, proud, and grateful America, 
grateful for the opportunities America has given his family and 
him. Second, he knows a lot about Israel and cares deeply about 
its relationship with the United States. I am confident that he 
will bring his considerable personal skills to bear to 
strengthen this very important bilateral relationship.
    As I suggested earlier, I do not think David ever dreamed 
that he would be nominated to be America's Ambassador to 
Israel, but then again, he probably never dreamed that one of 
his clients, who became his friend, would end up as President 
of the United States either. The fact that he has such a close 
personal relationship with the President, a trusting 
relationship, I think will help him be an extraordinary 
Ambassador and enable him to strengthen the already-strong 
bridges between the United States and Israel at a difficult 
time for Israel but also for the United States.
    Until a few months ago, David Friedman's life has basically 
been private. No more. I must say that the David Friedman I 
have seen described sometimes in the media in the last several 
weeks is not the thoughtful, capable, personable, and even 
funny David Friedman I know. Has David ever said or written 
anything that he wishes now he had phrased differently or even 
not said at all? I believe he has. He does. Who has not? I 
certainly have said something things I wish I could rephrase or 
not say at all.
    So I ask you to listen to what he has to say today with an 
open mind. If he has said something in the past that bothers 
you, ask him about it, but please put it in the larger context 
of his life, his character, his capability, and his deep desire 
to serve our country.
    From many long conversations we have had over the years, I 
can tell you that David Friedman does not only pray for peace 
between Israel and its neighbors every day, he yearns for it. 
And if you confirm him, he will, as U.S. Ambassador to Israel, 
do everything anyone could do to achieve peace between Israel 
and its neighbors.
    In short, I believe David Friedman deserves the support of 
this committee and the full Senate.
    And if I may, Mr. Chairman, Senator Cardin, I do want to 
say that I hope that support will be bipartisan because it 
would be a shame to have this committee and the Senate divide 
along party lines on a matter so central to America's 
relationship with Israel, which has historically and 
importantly been a safe zone of nonpartisanship even when just 
about everything else was divided along party lines.
    I thank you very much for giving me this opportunity, and I 
am very proud to introduce David Friedman to you and the 
committee.
    The Chairman. Thank you so much. We appreciate both of you 
being here and your comments. You are welcome to leave. We do 
not consider that impolite. I will say if you stay, it is 
likely you will be interrogated, so I would leave.
    With that, let me make a brief opening comment. I know that 
Senator Cardin does. I know we have a vote at 10:30 that will 
drag on for a while. Hopefully, we can get through Mr. 
Friedman's opening comments, take a break for a moment, and 
then come back and return for questioning.
    I want to welcome Mr. David Friedman to the committee today 
to discuss his nomination to be our Ambassador to Israel. Over 
the last 70 years, the United States and Israel have enjoyed a 
close and meaningful relationship. This alliance has been a 
pillar of America and Israeli foreign policy and greatly 
beneficial to both nations.
    Israel serves as the greatest model for democracy in the 
Middle East and is our most important ally in the region. 
American support for Israel is a widespread bipartisan effort, 
and it should remain so. Congress has repeatedly pushed for 
increased military aid and security cooperation between our two 
countries, and I believe that we have taken necessary steps to 
ensure that Israel will have every tool and resource needed to 
defend itself in an increasingly destabilized region.
    Yet even as we in Congress have done the things needed to 
strengthen our bond with Israel, we have to acknowledge that 
the relationship between our two great nations has been 
strained in recent years. It is clear that action taken by the 
U.N. Security Council in December was counterproductive to 
reaching a long-term peace between Israel and the Palestinian 
people. A durable peace agreement will only come from direct 
negotiations. Any third-party efforts to supersede those 
negotiations only serve as impediments to peace. In a 
neighborhood torn apart by terrorism and civil war, the 
disproportionate focus on Israel by the U.N. runs counter to 
the organization's stated goals.
    So with these challenges in mind and the onset of a new 
administration, now more than ever we must recommit ourselves 
to the vital, long-term support of Israel.
    Mr. Friedman, we are here to consider your nomination to be 
the U.S. Ambassador to Israel and to be the President's chief 
representative to that country. I look forward to hearing more 
today about how you will promote increased cooperation between 
our two nations, your views on the two-state solution and other 
avenues towards peace and how you will be an effective 
instrument for achieving the policy goals of the United States.
    We thank you for being here, and I will turn to my friend 
and ranking member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Chairman Corker. And, Mr. 
Friedman, welcome. We welcome your family. It is good to have 
everyone here. We thank you for your willingness to serve the 
public in this critically important position as the United 
States Ambassador to Israel.
    The U.S.-Israel relationship is a strategic anchor for the 
United States in the Middle East. Indeed, it is one of the most 
important relationships of any country. It is a deep and 
genuine friendship that extends across our governments and 
enriches by intense, deep, people-to-people ties. Your 
nomination comes at a critical point for Israel and for the 
U.S.-Israel relationship.
    As I know my colleagues on the committee appreciate, Israel 
finds itself in a sea of instability, confronted with threats 
on every border. To the south, ISIS in the Sinai continues to 
be a serious security threat despite much-improved cooperation 
with Egypt. As recently as last week, ISIS militants launched a 
barrage of rockets into Eilat. To the west, Hamas maintains a 
stronghold in Gaza and is diverting materials intended for 
civilians to rebuild its rocket arsenal and construct terror 
tunnels into Israel. To the north, Hezbollah is gaining 
battlefield experience in Syria that will inevitably be focused 
on Israel when the terror group's fighters return to Lebanon.
    To the east, the war in Syria is a magnet for violent 
extremists, and Iran, with Russia's acquiescence, maintains a 
strategic corridor with a willing Assad in Damascus to its 
proxy force Hezbollah in Lebanon. And across the region, 
Iranian regimes continue to spew anti-Semitic and anti-Israel 
rhetoric, sponsoring terror groups that pose a direct threat to 
Israel's security.
    In contrast to its neighbors and at a time when forces of 
authoritarianism, xenophobia, and illiberalism are on the rise 
in all too many places, Israel is and remains a vibrant 
democracy. It is home to a lively civil society and energetic, 
opinionated political discourse. Its vibrant and diverse 
economy offers tremendous opportunities for its high-tech 
sector and a startup culture to its achievements in agriculture 
and alternative energy. Our defense sector has collaborated to 
produce Iron Dome, a lifesaving missile defense system. 
Israel's innovative green and renewable energy sector, one of 
the leaders in the world, puts Israel in a position to be an 
energy provider to the region.
    The U.S. Ambassador to Israel plays a key role in engaging 
all communities within Israel, all sectors of its economy, and 
representing our government and the American people to Israel's 
Government, Parliament, and people. The U.S. Ambassador also 
plays a vital role in opening up U.S. Embassy doors to all 
groups, regardless of their politics or views. The Ambassador 
will help chart the U.S. response to countering Israel's 
isolation international organizations, as Senator Graham 
pointed out, and effectively counter the BDS movement, which 
threatens the legitimacy of Israel and fosters anti-Semitism.
    Given the breadth, depth, and complexity of the issues 
included in the portfolio of the U.S. Ambassador to Israel, Mr. 
Friedman, I have questions about your preparedness for this 
important post. I am uncertain of how you will represent all 
Americans to all Israelis and whether you are committed to a 
longstanding U.S. policy for a two-state solution.
    Of the last 10 Ambassadors to Israel across Republican and 
Democratic administrations, all 10 had prior U.S. Government 
experience, nine had prior professional experience in the 
Middle East, and eight had already served at least once as a 
U.S. Ambassador to other countries. I do not question that your 
background as a bankruptcy lawyer has enabled you to develop 
skills navigating complex multilateral negotiations, but 
serving as the top diplomat to one of the most important allies 
in the region that is beset by violent conflict, armed militant 
and terrorist groups, an unstable autocrat which requires a 
distinct set of skills and a distinct temperament.
    Frankly, the language you have regularly used against those 
who disagree with your views has me concerned about your 
preparedness to enter the world of diplomacy. So I will follow 
Senator Lieberman's advice and ask directly that you respond to 
these types of concerns.
    For the record, it is important to note the examples: 
reviving Holocaust terms to equate J Street supporters with 
Nazi collaborators or questioning their commitment and love for 
Israel; calling the Antidefamation league ``morons''; stating 
that liberal Jews suffer from ``constant disconnect in 
identifying good and evil.'' And, Mr. Friedman, I could mention 
your specific comments about President Obama or your specific 
comments about Members of the United States Senate, including 
the Democratic leader. And I would ask that you respond to 
that. These are written comments, cases where you had the 
opportunity to consider what you were saying, to make judicious 
edits if you so desired. You chose otherwise.
    I hope you will also offer a clear and unequivocal 
rejection of these inflammatory accusations as part of your 
testimony here today and also reassure us that you are capable 
of acting with the discipline, tact, wisdom, and diplomacy that 
serving as a U.S. Ambassador requires.
    I am also concerned that your views on the two-state 
solution constitutes an unprecedented break with longstanding 
U.S. policy. Republican and Democratic administrations alike 
have promoted two states living side by side in peace and 
security: a democratic Israel Jewish state and a demilitarized 
Palestinian state.
    Written excerpts from your writings on this topic include 
your August 2, 2016, piece in the Israeli publication entitled 
``End the Two-State Narrative,'' where you go on to call it a 
``damaging anachronism'' and ``illusory solution in search of a 
nonexistent problem.'' In that same piece you state that the 
Palestinians recognize ``the advantages of integration into 
Israeli society.''
    I do not see how Israel can remain democratic and Jewish in 
a one-state solution. Demographics are unambiguous in this 
regard. I still have not heard one realistic solution to what 
happens to Hamas in Gaza in a one-state solution. I hope you 
will be crystal clear on what your views are in regards to a 
realistic, sustainable solution to the Israeli-Palestinian 
conflict.
    Finally, your record of financial and rhetoric support for 
the settlements far outside the blocs--presumed to join Israel 
with mutually agreed land swaps as part of a two-state 
solution--are troubling. The web page for the gala dinner last 
year in New York in support of the Beit El settlement 
explicitly states that it is ``creating facts on the ground'' 
and notes a new initiative to ``train students with the tools 
to successfully delegitimizing the notion of a two-state 
solution.''
    In an August 2015 piece you wrote, ``Some 10 years ago, the 
State of Israel went through an extraordinary internal angst in 
compelling the evacuation of 8,000 brave Jewish souls in the 
relatively remote Gaza Strip. Does anyone really think that 
Israel has the political will to do the same to many hundreds 
of thousands of residents of Judea and Samaria? These are not 
people who live on the fringes of Israeli society. They are 
completely integrated into Israeli's commerce and culture and 
serve in the most elite units of the Israeli Army. They will 
never be forced to leave their beautiful homes.''
    Even President Trump last week said in an interview to an 
Israeli newspaper, ``Settlements do not help the process. There 
is so much land left, and every time you take land for 
settlements, there is less land left.''
    So again, Mr. Friedman, I hope you will clarify your views 
on settlements, on the two-state solution, and on the comments 
that you have made about my colleagues and others during the 
course of this hearing.
    My commitment to Israel is unyielding. I believe that it is 
a critical relationship for the United States, and I have 
worked in many decades in public service to assure that there 
is strong, stable, and mutually beneficial relationship between 
our countries. Likewise, I am confident of the commitment and 
support of my colleagues on the committee, even though we may 
have the--different views and conflicting views as to how best 
carry out that commitment.
    So in that spirit, Mr. Friedman, I look forward to your 
testimony.
    The Chairman. Thank you, Mr. Friedman. We thank you for 
your willingness to serve. Without objection, your written 
testimony will be entered into the record. If you would 
consider summarizing your views in about five minutes or so, we 
look forward to robust questioning. Again, thank you for being 
here. And by the way, you are welcome to introduce your 
wonderful family who happens to be with you today. I hope you 
will, as a matter of fact. Thank you.

   STATEMENT OF DAVID FRIEDMAN OF NEW YORK, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                       AMERICA TO ISRAEL

    Mr. Friedman. Chairman Corker, Ranking Member Cardin, 
members of the Senate Foreign Relations Committee, I appreciate 
very much the opportunity to appear before you today. It is a 
great privilege to address this committee, which has done so 
much to advance America's interests around the world--
[Disturbance in hearing room.]
    The Chairman. Continue.
    Mr. Friedman. It is a great privilege to address this 
committee, which has done so much to advance America's 
interests around the world and which, together with the entire 
United States Congress, has for generations maintained 
unwavering support on a bipartisan basis for the State of 
Israel.
    I am grateful to the President of the United States for 
nominating me to the post of Ambassador to Israel, and I am 
humbled by the trust and the confidence that he has placed in 
me to strengthen the unbreakable bond between our country and 
Israel and to advance the cause of peace within the region.
    I would like to thank Senator Graham and Senator Lieberman 
for their kind words of introduction and for their leadership 
on so many critical matters that affect our nation.
    I would like to introduce my family members who are here 
today and thank them for their support and encouragement. My 
beautiful bride of 36 years, Tammy, and my children Daniel, 
Aliza, and her husband Eli, and Talia. Watching at home are 
Daniel's wife Jana, my son Jacob and his wife Danielle who just 
had a baby boy, our daughter Katie and our seven beautiful 
grandchildren. Whatever success I have achieved in life would 
have been unthinkable without their love and support, 
especially that of my dear wife. I would also like to wish good 
luck to my youngest child Katie who is litigating her first 
mock trial today in her high school trial advocacy program.
    I could not continue without reflecting upon my father, 
Rabbi Morris Friedman, who passed away some 12 years ago. He 
was my mentor, my hero, and my closest friend. The child of 
poor immigrants, my father was a great patriot who felt an 
enormous debt of gratitude to our beloved country for its 
essential goodness in giving his parents and so many others the 
enormous opportunities embedded in United States citizenship.
    In 1948, my father and my mother sat nervously at their 
radio listening to the session of the United Nations that was 
then held in Queens, New York, and they rejoiced as the United 
States became the first nation to recognize the nascent State 
of Israel. My father cared deeply for Americans of all 
religious and political stripes. He marched in the civil rights 
movement, he convened prayer vigils to mourn the assassination 
of President Kennedy and Dr. Martin Luther King, and in the 
'70s he handcuffed himself on numerous occasions to the Soviet 
mission to protest the Kremlin's refusal to allow Soviet Jews 
to emigrate.
    In October 1984 my----
    [Disturbance in hearing room.]
    Mr. Friedman [continuing]. In October 1984 my father had 
the privilege to host President Ronald Reagan for lunch in our 
home in Long Island with my mother doing the cooking and to 
later introduce him as he addressed our synagogue. Those were 
dark days at the United Nations for the State of Israel. It 
operated under the cloud of a General Assembly resolution that 
equated Zionism with racism.
    President Reagan, in his remarks to my father's 
congregation, was unambiguous. He said, and I quote, ``If 
Israel is ever forced to walk out of the United Nations, 
America and Israel will walk out together.'' It was an 
unforgettable moment and a watershed in U.S. relations.
    Seven years later, with the overwhelming bipartisan support 
from this body, America led the effort to repeal the infamous 
U.N. resolution. I would like to thank Senator Cardin, who was 
serving in the House at that time, for his leadership in 
advocating for that effort. And to think that my father played 
a small role in setting that whole process in motion is of 
great pride to my family.
    My father's values are my values. I could never replicate 
the contributions he made. I have certainly never been forced 
or asked to sacrifice in the same manner of that great 
generation. But I have sought meaning and fulfillment in life 
through my faith, my incredible family, and through various 
philanthropic endeavors.
    As you know, our nation's support for Israel is 
longstanding, steadfast, and strongly in our national 
interests. If I am fortunate enough to be confirmed by the 
Senate, I will dedicate my mission to two things: advancing the 
national interest of the United States in strengthening its 
relationship with Israel and working tirelessly to bring peace 
and stability to the region. I will bring to this mission a 
deep understanding of Israel's history, culture, geography and 
commerce, developed over a lifetime of study and more than 50 
visits to the State of Israel.
    I will bring to this mission a close relationship with the 
President and a demonstrated ability to carry out his 
directions and strategies. And finally, I will bring a 
negotiating skill developed over many years to resolve 
multilateral disputes, often extraordinarily contentious. I 
will bring an unshakeable commitment to this country, an 
ability to positively engage with the Israelis, and a working 
command of the Hebrew language. I approach this with unbridled 
optimism and excitement.
    Some of the language that I used during the highly charged 
presidential campaign that ended last November has come in for 
criticism, and rightfully so. While I maintain profound 
differences of opinion with some of my critics, I regret the 
use of such language. I want to assure you that I understand 
the critical difference between the partisan rhetoric of a 
political contest and a diplomatic mission. Partisan rhetoric 
is not appropriate in achieving diplomatic progress, especially 
in a sensitive and strife-torn region like the Middle East. 
From my perspective, the inflammatory rhetoric that accompanied 
the presidential campaign is entirely over and, if I am 
confirmed, you should expect my comments to be respectful and 
measured.
    If confirmed, I will also faithfully observe----
    [Disturbance in hearing room.]
    Mr. Friedman [continuing]. If confirmed by the Senate, I 
also intend to faithfully observe the directions given me by 
the President and the Secretary of State, without regard to my 
personal opinions.
    I would like to thank this committee for permitting me to 
appear today. I look forward to answering all of your questions 
and, if I am confirmed, I look forward to working with each and 
every one of you to enhance our relationship with the State of 
Israel. Thank you.
    [The Mr. Friedman's prepared statement follows:]


                Prepared Statement of David M. Friedman

    Chairman Corker, Ranking Member Cardin, and members of the Senate 
Foreign Relations Committee:
    I appreciate the opportunity to appear before you today. It is a 
great privilege to address this committee, which has done so much to 
advance America's interests around the world and which, together with 
the entire United States Congress, has, for generations, maintained 
unwavering support, on a bipartisan basis, for the State of Israel.
    I am grateful to the President of the United States for nominating 
me to the post of Ambassador to Israel, and I am humbled by the trust 
and confidence that he has placed in me to strengthen the unbreakable 
bond between our country and Israel and to advance the cause of peace 
within the region.
    I would like to thank Senator Graham and Senator Lieberman for 
their kind words of introduction and for their leadership on so many 
critical matters affecting our nation.
    I would also like to introduce my family members who are here today 
and thank them for their support and encouragement: My beautiful bride 
of 36 years, Tammy, and my children Daniel, Aliza and her husband Eli, 
and Talia. Watching at home are Daniel's wife, Jana, my son Jacob and 
his wife Danielle (who just had a baby boy), our daughter Katie and our 
7 beautiful grandchildren. Whatever success I have achieved in life 
would have been unthinkable without their love and support, especially 
that of my dear wife. I would also like to wish good luck to our 
youngest child, Katie, who is litigating her first ``mock trial'' today 
in her high school trial advocacy program.
    I could not continue without reflecting upon my father, Rabbi 
Morris Friedman, who passed away some 12 years ago. He was my mentor, 
my hero and my closest friend. The child of poor immigrants, my father 
was a great patriot who felt an enormous debt of gratitude to our 
beloved country for its essential goodness in giving his parents and so 
many others the enormous opportunities embedded in American 
citizenship.
    In 1948, my father and mother sat nervously by their radio 
listening to a session of the United Nations, then headquartered in 
Queens, NY, and rejoiced as the United States became the first nation 
to recognize the nascent State of Israel. From that day forward my 
father dedicated much of his professional life to fostering the 
extraordinary relationship between the United States and Israel. My 
father cared deeply for Americans of all religious and political 
stripes--he marched in the civil rights movement, convened prayer 
vigils to mourn the assassinations of President Kennedy and Dr. Martin 
Luther King, and, in the 1970's, often handcuffed himself to the Soviet 
mission to protest the Kremlin's refusal to allow Soviet Jews to 
emigrate. My father led a congregation of 1,000 families, as well as 
the New York Board of Rabbis, at that time the largest cross-
denominational rabbinic organization of its kind.
    In October, 1984, my father had the privilege to host President 
Ronald Reagan for lunch in our home in Long Island (my mother actually 
did the cooking) and to later introduce him as he addressed our 
synagogue. I was fortunate enough to have been able to participate in 
that incredible event.
    Those were dark days for Israel at the United Nations. It was 
operating under the cloud of a General Assembly resolution equating 
Zionism with racism. President Reagan, in his remarks to my father's 
congregation, was unambiguous. He said, ``If Israel is ever forced to 
walk out of the United Nations, America and Israel will walk out 
together.'' It was an unforgettable moment, and a watershed in U.S.-
Israeli relations. Seven years later, with the overwhelming bipartisan 
support from Members of this body, America led the effort to repeal the 
infamous UN resolution. I want to thank Senator Cardin, who was serving 
in the House at the time, for his leadership in advocating for that 
effort. To think that my father played a role in setting that whole 
process in motion is of great pride to me and my family
    My father's values are my values. I could never replicate the 
contribution that he made to his community and country--he was 
certainly of the greatest generation. I have never been called upon to 
sacrifice in the same manner as so many of that generation, and I have 
been blessed beyond measure by the vast opportunities that America has 
bestowed upon me. But I have sought meaning and fulfillment in life 
through my faith, my incredible family, and through various 
philanthropic endeavors. Let me describe one of those endeavors now.
    I was an early supporter of United Hatzala, an Israeli organization 
of volunteer first responders that uses advanced technology and 
``ambucycles'' to weave through traffic to provide emergency services 
and save lives. Here's what makes Hatzala so special: It is comprised 
of volunteers from the entire spectrum of the Israeli population--Jews, 
Muslims and Christians, religious and secular, right wing and left 
wing. They all operate under a single credo: treat patients in the 
order of the severity of their affliction and never let any other 
considerations--political, religious or otherwise--influence your 
commitment to saving lives. Hatzala represents the best of the Israeli 
people--all the Israeli people--and gives me a strong sense of optimism 
that peace will one day come to this region of conflict.
    As you know, our nation's support for Israel is longstanding, 
steadfast and strongly in our national interest. Israel provides 
critical intelligence support to the United States, cooperates 
extensively with the United States in military initiatives, and acts as 
an ``incubator'' for many cutting edge strategic projects. Most 
importantly, Israel shares America's values and is of enormous 
religious and cultural importance to tens of millions of Jews, 
Christians and Muslims. Because Israel is surrounded by hostile enemies 
and has no friend in the world like us, I share the President's view 
that, notwithstanding the inevitable disagreements that may arise 
between our two countries, there should never be any ``daylight'' 
between the United States and Israel.
    If I am fortunate enough to be confirmed by the Senate, I will 
dedicate my mission to two things: 1) advancing the national interest 
of the United States in strengthening its relationship with Israel, and 
2) working tirelessly to bring peace and stability to the region. I 
will bring to this mission a deep understanding of Israel's history, 
culture, geography, commerce and politics, developed over a lifetime of 
study and at least 50 visits to this extraordinary country. I will 
bring to this mission a close relationship with the President and a 
demonstrated ability to carry out his directives and strategies. 
Finally, I will bring a negotiating skill-set developed over 35 years 
of resolving multi-lateral disputes involving complex transactions, an 
unshakeable commitment to advance our national interests, an ability to 
positively engage with the people of Israel and a working command of 
the Hebrew language. I approach the prospect of this engagement with 
unbridled excitement and optimism.
    Some of the language that I used during the highly charged 
presidential campaign that ended last November has come in for 
criticism--and rightfully so. While I maintain profound differences of 
opinion with some of my critics, I regret the use of such language and 
I want to assure you that I understand the important difference between 
a political contest and a diplomatic mission. Partisan rhetoric is 
rarely if ever appropriate in achieving diplomatic progress, especially 
in a sensitive and strife-torn region like the Middle East. From my 
perspective, the inflammatory rhetoric that accompanied the 
presidential campaign is entirely over, and, if I am confirmed, you 
should expect that my comments will be respectful and measured. If 
confirmed by the Senate, I also intend to faithfully observe the 
directions given me by the President and the Secretary of State, 
without regard to any personal opinion I may hold.
    Again, I would like to thank this committee for permitting me to 
appear today. I look forward to answering your questions and, if I am 
fortunate enough to be confirmed, I look forward to working with you to 
enhance our relationship with the State of Israel.


    The Chairman. Thank you for those comments. For the state 
of play, the vote has not yet gone off, and we will just 
continue with questions----
    [Disturbance in hearing room.]
    The Chairman  [continuing]. So we will begin questioning 
with Senator Cardin, and if Senator Barrasso comes back, he is 
next. If not, it will be Senator Risch.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Friedman, you and I have something very much in common. 
Our parents were proud Zionists, worked everything they could 
in order to strengthen the support for the State of Israel and 
the values that it stood for and stands for.
    But my parents also taught me that words have consequences. 
My father, who, a blessed memory, was a circuit court judge, 
served as president of our synagogue, which he told me was the 
toughest position he ever held, and taught me how to just 
respect different views and to do that in an effective way.
    So I am having difficulty understanding the language that 
you have used. You have sort of justified that in your comments 
here that it was part of a campaign. These were written 
statements. But in some cases they go back before the campaign. 
I am specifically referring to your comments about the 
Democratic leader in the Senate and his motivation in regards 
to the Iran nuclear agreement and how he came about his 
decision-making during that very difficult time.
    As a person who struggled with that decision, I know the 
deliberations that Senator Schumer went through. I know the 
deliberations that I went through and all Members went through. 
It was a tough decision.
    So I am having difficulty understanding your use of that--
of those descriptions and whether you can be a diplomat because 
a diplomat has to choose every word that he or she uses. So why 
should I believe that these were just emotional expressions and 
that you now understand the difference between that role and 
that as a diplomat?
    Mr. Friedman. Well, Senator, I provided some context for my 
remarks, but that was not in the nature of an excuse. There is 
no excuse. I will--if you want me to rationalize it or justify 
it, I cannot. These were hurtful words and I deeply regret 
them. They are not reflective of my nature or my character. And 
I will tell you that for many, many years I have been involved 
in some of the most difficult, contentious, highly personal 
disputes that one can imagine, albeit in a commercial context, 
and I have dealt with judges and government officials, and over 
a lengthy period, no one has ever found me to be unable to 
control my temperament or my rhetoric.
    The Iran deal was something I felt passionately about. I 
was concerned that the United States was embarking upon a deal 
that presented an existential risk to Israel and potentially a 
significant risk to our great country as well. I do not--I did 
not have access to all the classified information that the 
members of the Senate have, but from my perspective as a 
private citizen, I felt it was important to speak out. And I 
did so, again, in a private manner. Those are my private 
opinions. They will be left in New York if I am privileged 
enough to travel to the State of Israel for this mission.
    Senator Cardin. So just to put this in context and then I 
am going to move on to the second issue I want to talk about, 
you are accusing the Democratic leader of ``validating the 
worst appeasements of terrorism since Munich.'' Those words 
just are beyond hurtful. They are--Senator Schumer is one of 
the champions on these causes. Anyway, let me move on to the 
two-state solution.
    We had a chance to talk in my office. We know the 
demographics. We also understand the geographical area of a 
viable Palestinian state. We know--we do not know exactly where 
those lines will be but we have an idea. We both agree that 
that must be negotiated directly between the Palestinians and 
Israelis. No third party can dictate those terms. We are in 
total agreement that that will be a decision made by the 
Israelis and the Palestinians.
    But we also know the geographical areas that are likely to 
be part of those discussions, and settlements in areas that are 
outside of that generally accepted area has been perceived by 
America as being less than helpful in the debate. You of course 
have been involved in supporting settlements and in 
conversations that seem to imply that the two-state solution is 
no longer a viable option. What do you mean by that?
    Mr. Friedman. Senator, if the Israelis and the Palestinians 
were able, through direct negotiations, to achieve a two-state 
solution along parameters agreeable to them--and the Prime 
Minister of Israel yesterday outlined some of them--I would be 
delighted. I would be delighted to see peace come to this 
region where people have suffered on both sides for so long.
    I have expressed my skepticism about the two-state solution 
solely on the basis of what I have perceived as an 
unwillingness on the part of the Palestinians to renounce 
terror and accept Israel as a Jewish state. I think that, in my 
view, is a foundational problem, but I think it can be 
remedied, and I hope it is.
    Senator Cardin. I do not think anyone would disagree with 
that statement. The prerequisite of a two-state solution is 
that there is a Jewish state that is recognized by its neighbor 
and no longer can there be the cry that it is not legitimate. I 
mean, I think that is--I think we all agree on that. I am not 
sure that is responsive to the concerns that I have.
    Mr. Friedman. Senator, again, I would be delighted if a 
two-state solution could be achieved. The two-state solution, 
as you know, began to take form in 1993 with the Oslo Accords. 
One of the primary commitments of those accords was Chairman 
Arafat's commitment to end incitement and to begin to educate 
his people to stop hatred. And we have not made progress since 
then. And in the aftermath of Oslo, terrorism has increased 
fourfold since before Oslo.
    I do not think you and I disagree. I think that we both 
support Israel, we both love this country, and we both want 
peace. And I--frankly, I think that there is more that we have 
in common than divides us. I do want to see peace in the 
region, and I do believe that a two-state solution, if it could 
be achieved, would bring tremendous benefits to both the 
Israelis and the Palestinians.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. I think because of the type of hearing I see 
this developing into, we will have seven minutes on the clock 
for a round. And I know you just took seven, so I will let 
you----
    Senator Cardin. I would have taken nine if----
    The Chairman [continuing]. Bertie, if you would--I 
understand that so that is why I waited. But put seven minutes 
on the clock if you will.
    Senator Risch.
    Senator Risch. Well, thank you very much.
    Mr. Friedman, thank you for your willingness to take on 
what is obviously going to be a difficult struggle, as it 
always has been in recent years.
    Let me try to drill down a little bit in one of the 
concerns that I have. All of us sit and think about how if 
there is indeed a solution, if a solution is even possible, how 
do you get there? And the problem I see or one of the many, 
many problems that I see is kind of foundational to the whole 
thing, and that is who you are negotiating with. I mean, it 
seems to me that Palestinian Authority and Hamas are deeply 
divided and deeply polarized. And how do you accomplish that 
when you are supposed to be dealing with a single entity that 
can make a deal that everybody is willing to live with? Because 
the deal is not going to work unless the majority, the vast 
majority of the people on each side are in agreement and 
committed to make it work. So how--what are your thoughts on 
that? I understand it is getting a little bit in the weeds, but 
to me it is really foundational to how you get to the end.
    Mr. Friedman. Senator, I think you have identified the 
gating problem, and it is an extraordinary challenge. And if--I 
think if we did not have that problem, this would have been 
settled already. Hamas is a terrorist organization. They seek 
the destruction of the State of Israel, the entire State of 
Israel. Their issues are not settlements; their issues are the 
existence of Israel. They control the Gaza Strip, and I do not 
know who would control the West Bank if there were elections 
tomorrow.
    I think that from--I do not have a good answer to making 
peace with an entity controlled by Hamas. I do believe that the 
future needs to begin with greater efforts to empower and to 
some extent to create a Palestinian middle class. Gaza is 
ungovernable. It has a 30 percent or higher unemployment rate. 
Until that changes, I do not think we will be able to uproot 
Hamas from the Gaza Strip. And so I am--my approach has been 
and if asked by the President, it is--I am not here to make 
policy, but if asked by the President, I would recommend 
deepening the efforts, along with our allies in the Gulf and 
Israel's neighbors to work harder on empowering the economic 
opportunities for the Palestinian people, who I believe are 
being held hostage by a ruthless regime.
    Senator Risch. You know, I appreciate that. And that 
observation seems to be very legitimate in that the Gaza Strip 
and the West Bank seem like worlds apart as far as economic 
opportunity and for that matter as far as just culture. And, 
again, I do not know how you get those--how you bring those 
together to get where you need to be, but I wish you well in 
that. And I think we will all be watching to see how that works 
out. But it is--and those--that may very well be out of 
everyone's control except the Palestinians themselves.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I think what we will do is instead 
of having a roving--I know people want to hear the answers to 
these questions. We are going to recess. We have a vote, and 
unfortunately, there is a 10-minute debate period in between 
and then another vote. If everybody would just come back 
promptly after the second vote, so you may want to come back 
into the back, Mr. Friedman, or do whatever, but we are going 
to recess until that time. Thank you. [Recess.]
    The Chairman. First of all, we are back in session. And in 
order to move on with it, Senator Udall, if you would--since 
you are ready, we will move on to you and thank you.
    Senator Udall. Thank you very much. And I appreciate the 
hearing.
    And, first of all, I would like to just put in the record 
the letter from the five Ambassadors if it has not already been 
put in the record, bipartisan group of Ambassadors that say 
that Mr. Friedman is unfit to be Ambassador. So I would----
    The Chairman. Without objection.
    Senator Udall [continuing]. I would do that.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 61.]


    Senator Udall. And I am going to agree with much of what 
they said. I am strongly opposed to this nominee. I believe 
Secretary Tillerson and President Trump should recognize that 
Mr. Friedman is completely unfit for this or any other 
diplomatic office and withdraw him immediately.
    If not, I strongly recommend that this committee not 
recommend him for confirmation. Mr. Friedman does not represent 
American values in the region. That is evident from his past 
statements, and they are not random off-the-cuff remarks. Much 
of his offensive, inflammatory, and insulting rhetoric has been 
reported in the newspapers and repeated over and over. He has 
called for an arbitrary ban on many Muslims entering the 
country. Mr. Friedman has stated that Muslims should submit 
internet and telecommunications activity for inspection, and he 
has said, and I quote, ``No need to worry about the First 
Amendment.'' And he has also said the ``the rights of free 
speech do not apply'' to Muslims attempting to enter our 
country.
    Mr. Chairman and colleagues, just last week, the Republican 
majority chose to censure a colleague under Senate Rule 19 for 
imputing bad conduct to a Senator. Well, if we truly care 
whether Senators are maligned, we should look at Mr. Friedman's 
words, which I think have been mentioned earlier by Mr. Cardin, 
and I agree with him in his opening talking about him rejecting 
these comments.
    But he has insulted and denigrated members of the Senate, 
including Senator Schumer and Senator Franken. Mr. Friedman 
said, and I quote, ``No matter how we ultimately vote--no 
matter how he ultimately votes, by making his decision such a 
close call, which it plainly should not be, Schumer is 
violating the worst--is validating the worst appeasement of 
terrorism since Munich,'' end quote.
    When the Anti-Defamation League and Senator Franken 
criticized the Trump campaign ad as being anti-Semitic, he 
said, and I quote, ``I do not see how anybody can take the 
Anti-Defamation League seriously going forward. This is what 
happens when people take these insane arguments to their 
logical extension. They lose all credibility, and frankly, they 
sound like morons,'' end quote.
    He has slandered President Obama and his administration. 
And I quote, ``The blatant anti-Semitism emanating from our 
President and his sycophantic minions is palpable and very 
disturbing.''
    He has denigrated Secretary Clinton's personal views on 
Israel. And I quote, ``I do not think she particularly likes 
Israel.''
    Responded--responding to President Obama and Secretary 
Kerry's condemnations of violence in Israel, he said, and I 
quote, engaging in ``blatant anti-Semitism,'' end quote.
    I think we can all detect a pattern here. Anyone who 
disagrees with his extreme views or approach to Israel is an 
anti-Semite. For the record, Mr. Friedman has also said that 
liberal Jews, and I quote, ``suffer a cognitive disconnect in 
identifying good and evil,'' end quote. By these words, he 
disrespects many in the Jewish community, including my home 
State of New Mexico, which I have had many calls from New 
Mexico urging that we reject this nomination.
    Such divisive and hateful comments against any who disagree 
with him on--are--is unbecoming of an ambassador to any 
country. It is clear that Mr. Friedman's appointment would 
represent a profound break with decades of U.S. foreign policy 
supporting a two-state solution and resisting illegal 
settlements that make such a solution more remote. President 
Reagan said that settlement activity was, and I quote, ``no way 
necessary for the security of Israel and only diminishes the 
confidence of Arabs that a final outcome can be freely and 
fairly negotiated,'' end quote. I wonder, were President Reagan 
here today, would Mr. Friedman label him anti-Semitic?
    Mr. Friedman is profoundly unfit to lead members of the 
State Department. He accuses many of them of being, quote, 
``over 100 years of anti-Semitism,'' end quote. I say this as a 
friend of Israel, who has always supported military aid to 
defend her borders. If we confirm him, we are running a 
dangerous risk that Mr. Friedman will inflame a volatile 
situation and inflame other foreign governments in the region. 
We need a steady hand in the Middle East, not a bomb-thrower in 
a position of high power and responsibility.
    One final note: Sometimes Mr. Friedman does not stop at 
merely name-calling those who disagree with him as anti-
Semitic. He wrote in an article in 2015, and I quote here, ``J 
Street supporters are far worse than kapos, Jews who turned in 
their fellow Jews in the Nazi death camps. They are just smug 
advocates of Israeli--Israel's destruction delivered from the 
comfort of their secure American sofas. It is hard to imagine 
anyone worse,'' end quote. That statement--in a written 
article, not in off-the-cuff remarks--demonstrates his complete 
and total unfitness for this extremely important office.
    Mr. Chairman, I would like to enter all the source 
documents for all of these quotes into the official hearing 
record.
    The Chairman. Without objection.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 63.]


    Senator Udall. Thank you.
    If the majority wants to jam through all of the 
President's--President Trump's diplomatic nominees, they 
probably can. But I urge them to caucus in private and talk to 
the President's team to see if we can move in a different 
direction.
    Mr. Friedman, have you ever issued a public apology for any 
of your insulting comments regarding other's views on Israel 
and Middle Eastern issues? And will you today reject those 
comments here?
    Mr. Friedman. I reject the----
    Senator Udall. Could you turn on your microphone, please, 
sir?
    Mr. Friedman [continuing]. Yes, Senator. I have and will 
continue to reject the inflammatory comments. I have reached 
out over the last several months to a number of people who have 
been hurt by the things I have said or have communicated to me 
that they would like to speak with me. It includes the head of 
the Union of American Reform Rabbis. It includes members of the 
New York Board of Rabbis. It includes a personal meeting with 
Senator Franken. It includes a telephone called followed up by 
emails with Jonathan Greenblatt of the Anti-Defamation League. 
In at least the latter two cases the apologies were fully 
accepted, and I expect ongoing--on an ongoing basis those 
relationships and others will be inclusive and respectful.
    Senator Udall. Now, I also would like to ask--I know my 
time is out and I will submit questions for the record. But you 
have invested massively in the settlement movement, and so I 
would like you for the record to answer in writing whether you 
have separated your financial interests from that of Beit El 
and all other settlements you have an interest in and have done 
so. And I appreciate very much the chairman's courtesies in 
allowing me to run over a little bit. Thank you.
    The Chairman. Absolutely. I do not know if that is a yes or 
no answer, so I do not know if you want to.
    Mr. Friedman. I will be happy to submit answers to all of 
your questions, Senator.
    Senator Udall. Thank you.
    The Chairman. Thank you.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 53.]


    The Chairman. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    And I appreciate the opportunity to hear you respond to 
some of those allegations. And you use the word reject. I think 
you regret perhaps also some of those comments it sounds like, 
not to put words in your mouth but that is----
    Mr. Friedman. I do. I do, Senator.
    Senator Portman [continuing]. That is what I sense from 
today, including your prepared remarks. You could have no 
better advocate than Joe Lieberman, and he does have enormous 
respect on both sides of the aisle and he knows you as a friend 
and as a colleague. And so you are smart to have brought him 
with you today. [Laughter.]
    Mr. Friedman. Thank you.
    Senator Portman. Graham I will not talk about. [Laughter.]
    Senator Portman. Just kidding. He is fine, too. [Laughter.]
    Senator Portman. But I do have concerns. You know, this is 
not a typical ambassadorship. I mean, it is--having been to 
Israel a number of times and met with our Ambassador there, let 
us be frank. In a lot of countries of the world it does not 
matter that much who the Ambassador is. The State Department 
has taken a bigger and bigger role over the last several 
decades in foreign policy and even the White House, you know, 
plays a big role in certain countries. But this is a really 
important one, and that person on the ground, developing those 
relationships I think is critical for two reasons. One, we do 
have a lot of divergent points of view here, as you can see. We 
all are very supportive of Israel I think it is fair to say. I 
hope that is true.
    But there are different approaches to the policy issue, so 
an ambassador has to be able to bring all these different 
points of view together and provide counsel to our President 
and to our Secretary of State and others, National Security 
Advisor. You will get a lot of visitors, assuming you are 
confirmed, from this body but also from around the world, and 
so it is a very important role in terms of taking all these 
different points of view.
    And so one of my questions for you is do you think you are 
capable of doing that, you know, listening to all points of 
view and being in some respects a broker, you know, of those 
points of view to describe to our administration as to the best 
approach forward?
    Mr. Friedman. Senator, thank you. And yes, I do think I can 
do that. I think that bipartisanship has always been the 
hallmark of America's support for Israel. And--I am sorry. As I 
have commented occasionally to several of the Senators I have 
had the privilege to meet, I want to do everything I can to 
work with the Members of Congress to build upon what is, I 
think, much more that unites us than divides us on the State of 
Israel. There are obviously divergent views, and I think all 
those views need to be considered. And I think they are all 
made in good faith. And if I am confirmed, it will be a high 
priority of mine to synthesize and to the extent possible 
harmonize the views of the Congress and also to do the same in 
Israel because, as divided as the United States is, the State 
of Israel is just as divided. And their governing system is 
very challenging.
    Senator Portman. Mr. Friedman, let me continue. The second 
role that I was going to mention is the one that you are sort 
of suggesting now, which is--my sense is the Ambassador to 
Israel typically has been someone who has a personal 
relationship with the leadership there and not just the Prime 
Minister but also members of the cabinet and members of the 
opposition parties because, as you say, it is pretty diverse 
and sometimes a little chaotic in their Parliament, but you 
have to have those relationships. And so my question to you is 
do you think you can be effective there? And, specifically, how 
would you go about representing the United States of America? 
Would you be interested in more public comments? Some 
Ambassadors have taken that route. Or would this be more 
private conversations? And do you feel as though you have 
relationships in the country beyond the coalition government, 
beyond the existing parties that are in power to be able to 
perform that role?
    Mr. Friedman. Well, Senator, on the issue of public 
comments or private, I happen to believe that with regard to 
the State of Israel discretion is incredibly important. And I 
think public comments can be self-defeating. The--as you saw 
yesterday, people hang on every word that is issued on this 
subject, whether or not the speaker intended that or not. I 
think you have to be careful. I think the--if there is progress 
to be made in the Middle East in the peace process, it is 
through private diplomacy, through forging agreements and 
coalitions and common interests behind the scenes. And I think 
that is important.
    I do understand well the center, the left, and the right of 
the Israeli Knesset. They are all good people. Many of them 
have sacrificed--I think they have all sacrificed for their 
country. Many of them have paid the ultimate sacrifice through 
the loss of loved ones for their country. You know, people on 
the left who have lost their families continue to maintain 
positions on the left with--and they are entitled to do so and 
they should do so.
    So it is hard to bring that together, but ultimately, this 
is a Rubik's Cube, and there is a lot of pieces that have to 
come together. And I do think I know the issues, I know the 
players, and I do think I have worked in an albeit much less 
complicated capacity, but I have worked to develop the skill 
set that I think will be complementary to that task.
    Senator Portman. In your law practice?
    Mr. Friedman. Yes.
    Senator Portman. Yes. One specific issue that I want to 
raise is BDS, boycotts, divestments, and sanctions. And I think 
the Ambassador to Israel will have to be someone who is a 
spokesperson for the U.S. point of view on this and will have 
the ability, I hope, to be able to communicate to the rest of 
the world what it means, for instance, to have sanctions or 
boycotts with regard to the West Bank. What would that mean in 
terms of Israel? What does it mean in terms of the 
Palestinians?
    Mr. Friedman. Sure.
    Senator Portman. Golan is the other issue that has now, as 
you know, become part of BDS in some forms. So what are your 
views on BDS? Ben Cardin and I got legislation passed. We are 
looking at additional legislation. The Congress is on record 
now on this issue. We want to do more. But just talk to us a 
little how you think as an ambassador to Israel you can be an 
effective communicator on the BDS issue and pushing back, 
combatting this what is, I think, a global effort now that 
needs strong support from the United States to combat it.
    Mr. Friedman. Well, I will be a fierce advocate against the 
BDS movement, as I understand, Ambassador Haley has committed 
to do as well. I look at the example of SodaStream. I do not 
know if you are familiar with that company, but SodaStream was 
a--is--was an extraordinarily successful company that employed 
hundreds of Palestinians and hundreds of Israelis and paid them 
all the same wages and gave them the same benefits and it was a 
paradigm of Israelis and Palestinians working together. And 
because SodaStream happened to be on the wrong side of the 
green line, they were boycotted throughout the world and had to 
move, so they moved to the Negev and the Palestinians lost 
their jobs. This is an entirely self-defeating prospect not 
only for Israel but for the Palestinians as well.
    Senator Portman. My time is expired. Thank you, Mr. 
Chairman.
    The Chairman. Thank you so much.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. Thank you, Mr. 
Friedman, and welcome.
    I just want to talk about one thing, and that was the press 
conference yesterday between Prime Minister Netanyahu and 
President Trump. U.S. policy since resolution 181 in 1947 has 
been to support--and this is in the words of the resolution 
itself--``a partition of the area previously known as Palestine 
into two states, a Jewish state and an Arab state.'' And the 
idea of the two states has been the cornerstone of American 
foreign policy and reaffirmed often by the U.S., Palestinians, 
and Israel since the Oslo Accords in 1993 and 1995.
    Yesterday, President Trump signaled potentially a new 
direction, and I just want to quote him. And I am just going 
to--I really want to talk to you about exactly what he said, 
not editorializing about it, just what he said. Quote, ``I am 
looking at two-state and one-state formulations. I like the one 
that both parties like. I am very happy with the one both 
parties like. I can live with either one.'' As I read that, I 
assumed that ``both parties'' mean Israel and Palestine or 
Israelis and Palestinians more broadly. Is that how you 
understood that comment?
    Mr. Friedman. Yes, and I watched that from my iPhone with 
keen interest. I was not involved in the meeting with the Prime 
Minister or the leadup to it or the follow-up, so I am relying 
upon what I saw as well as you. But, yes, I heard it that way. 
It was whatever the Palestinians and the Israelis agree upon.
    Senator Kaine. And I think this is something that would get 
near unanimous view up here. U.S. policy should be to support a 
resolution that both parties like, but if either or both 
parties do not accept it, then the U.S. should not support that 
policy. Is that fair?
    Mr. Friedman. Well, I could not speculate on the policy 
that might not gain, you know, bilateral support. Certainly, it 
has been the policy of this country for generations to foster 
direct negotiations and to help bring those to a conclusion.
    Senator Kaine. But would you agree with the general thrust 
of the President's statement that ``I like the one that both 
parties like''?
    Mr. Friedman. Certainly.
    Senator Kaine. Regarding a two-state solution, Israel would 
not like--would not accept any formulation where a neighboring 
Palestine refused to recognize it as the Jewish state 
contemplated by resolution 181. Is that fair to say?
    Mr. Friedman. I think so.
    Senator Kaine. And Israel would not like any formulation 
where a neighboring Palestine refused to treat it peacefully 
and live with it as a peaceful neighbor. Do you agree with 
that?
    Mr. Friedman. Yes.
    Senator Kaine. So based on the President's statement, if 
Israel did not like a two-state proposal for one of those two 
reasons, then the U.S. could not support it based on this ``I 
support something that both sides like''?
    Mr. Friedman. Again, that--the U.S. could not support--I 
think I would have to know more about what exactly the U.S. was 
being presented with.
    Senator Kaine. But you would not expect the U.S. to support 
a two-state deal where there was not a pledge to recognize 
Israel's right to exist or Israel's security?
    Mr. Friedman. No, Israel is one of our strongest allies, 
and I think we owe it no less.
    Senator Kaine. So let me now switch over to the one-state 
formulation. Palestinians would not like any one-state solution 
where they would be evacuated or forced to lose their land, 
would they?
    Mr. Friedman. I would not think so.
    Senator Kaine. And Palestinians would not like any one-
state solution unless they had full and equal legal rights in 
such a state, correct?
    Mr. Friedman. I do not think anyone would ever support a 
state where different classes of citizens had separate rights.
    Senator Kaine. And I think you and I agree on that. In 
fact, we talked in my office yesterday. Not only would the U.S. 
not be able to accept a situation where people were consigned 
to a second-class status, but from my, you know, somewhat 
limited experience in Israel and your dramatically greater 
experience, the Israelis I know--I do not believe the majority 
of them would accept a one-state solution where Palestinians 
were consigned to a second-class legal status.
    Mr. Friedman. I do not know Israelis even on the right 
who--even on the far right who would support that. It is an 
untenable and immoral construct.
    Senator Kaine. So based on the President's formulation 
yesterday, one-state solution would only be acceptable if 
Palestinians accepted it, and Palestinians are not going to 
accept it if they are treated as second-class citizens in that 
one-state formulation.
    Mr. Friedman. I agree.
    Senator Kaine. So now just let me summarize. Based on the 
President's theory and his words, that we cannot support any 
formulation--we can support any formulation that makes both 
sides happy. The U.S. could never accept--talking about U.S. 
policy now, not Israeli or Palestinian policy. The U.S. could 
never support a two-state solution if it did not require full 
recognition of Israel as the Jewish state contemplated by the 
resolution in 1947 and a commitment to live in peace with 
Israel. We could never support such a policy, correct?
    Mr. Friedman. Correct.
    Senator Kaine. And the U.S. could never support a one-state 
solution or indeed any solution where Palestinians are deprived 
of full and equal legal rights that are accorded to any other 
citizen, correct?
    Mr. Friedman. I think so.
    Senator Kaine. I do not have any other questions, Mr. 
Chair. Thank you.
    The Chairman. Thank you, Sir.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Friedman, thank you for your willingness to serve.
    Mr. Friedman. Thank you.
    Senator Johnson. Having done an awful lot of negotiating 
myself, you have to sit down at a negotiating table with people 
and negotiate in good faith. And I can think the fundamental 
problem here is that you have the other side, Palestinians, 
just refusing to acknowledge Israel's right to exist. Is that 
not basically the fundamental problem here?
    Mr. Friedman. It has been the problem for a generation.
    Senator Johnson. I want to talk a little bit about--you had 
mentioned in your testimony that Palestinians are being held 
hostage. In their education system for decades they have been 
teaching pretty vile things about Israelis and Jews, correct?
    Mr. Friedman. Yes, they have.
    Senator Johnson. In Palestinian law they actually are 
rewarding terrorists, correct? And it is an increasing 
incentive based on the number of people terrorists have 
murdered, is that not correct?
    Mr. Friedman. Exactly true.
    Senator Johnson. So is it really true that a majority of 
Palestinians are being held hostage and would really like a 
peaceful coexistence with the Israeli State?
    Mr. Friedman. I believe the majority of Palestinians would 
like peaceful coexistence.
    Senator Johnson. Okay. I hope that is true.
    To what extent should America continue to provide foreign 
aid to the Palestinian Authority when they are teaching their 
young children the vile things they teach, when they are 
incentivizing Palestinian terrorists to continue to murder 
Jews?
    Mr. Friedman. I think it is an important question for 
Congress to consider. We cannot continue to incentivize this 
behavior. It is entirely self-defeating to the Palestinians, to 
Israel, to the entire world. And I understand Congress is 
looking at this, and I certainly applaud that effort.
    Senator Johnson. Do you know what the new administration's 
position is going to be on that? Are we going to continue to 
provide that foreign aid unless--or are we going to condition 
foreign aid on certainly their not teaching these things, not 
providing those types of incentives?
    Mr. Friedman. I do not know if the administration has 
formed a specific position on it, but I would be delighted to 
find out and get back to you, Senator.
    Senator Johnson. In 1981 in the Golan Heights I think 
Israel recognized that it just was not working to have 
different rules of law apply, kind of to Senator Kaine's 
question here. There--for those Syrian citizens at Golan 
Heights they needed some certainty, so Israel decided to take 
the measure to apply Israeli law in the Golan Heights. Can you 
speak a little bit to what happened there and what the effect 
has been?
    Mr. Friedman. Well, I think the Golan Heights is an 
incredibly important strategic area for Israel. One can only 
imagine what Israel would be--how Israel would be suffering now 
if it did not have the Golan Heights and the Golan Heights were 
occupied by ISIS. The Golan Heights is not an area of conflict. 
I mean, I am not saying there may not--there may be some 
conflicts, but my experience I think it worked out quite well.
    Senator Johnson. I do not want to speak for Syrians living 
in the Golan Heights, but I think if I were a Syrian, I would 
rather be living in the Golan Heights right now than, let us 
say, Aleppo.
    Mr. Friedman. I am sure that is true.
    Senator Johnson. One of the questions I have asked some 
European representatives is if they had to move their family to 
the Middle East, could choose any country in the Middle East, 
where would they choose to locate their family? I can tell you 
my answer on that. I choose Israel. That is my final question. 
Thanks.
    The Chairman. Thank you, sir.
    Senator Coons. Well, thank you, Chairman Corker, Ranking 
Member Cardin, for holding this important confirmation hearing. 
And thank you, Mr. Friedman----
    Mr. Friedman. Thank you, Senator.
    Senator Coons [continuing]. For your willingness to serve 
the U.S. Government and the America people.
    We had a constructive--pointed but constructive, I thought, 
conversation yesterday, and I am going to make an opening 
statement and then ask a few questions.
    You are well-known to the Delaware bar, and I will 
stipulate for the record at the outset that your legal skills 
are widely and well-respected. And as many of my colleagues 
have asked questions around this, that is really not the 
central concern raised by former Ambassadors, raised in this 
hearing. It is not whether you are skilled at reaching complex 
legal resolutions but whether your intemperate previous 
statements should suggest to us that in a unique circumstance 
with a President unskilled in diplomacy and inclined towards 
inflammatory tweets, that your temperament is appropriate for 
this critically important post. So that is sort of, I think, 
our central question today.
    Let me first say that one of my core concerns, as we 
discussed, is that the vital alliance between the United States 
and Israel should not be sacrificed on the altar of partisan 
politics. And as a strong supporter of Israel, I have long 
believed that bipartisanship in support of Israel advances our 
nation's interest, Israel's interests, and is the best path 
towards peace in the world.
    But I am gravely concerned that political forces in the 
United States and in Israel are pulling officials away from a 
sensible middle ground and towards increasingly extreme 
positions on the left and right. And at a time of real division 
in both our nations, I think it is important that this Congress 
act in a way that reaffirms our bipartisan commitment to 
Israel.
    We share a lot of interests. We have a great deal at stake. 
Iran continues to threaten Israel and American interests, 
continues to destabilize the broader Middle East, terrorist 
groups like ISIS, Hamas, and Hezbollah jeopardize the safety 
and security of too many Americans, Israelis, and Arabs. And on 
these and many other issues Israel is a vital partner for the 
United States. Much of the media coverage surround our 
relationship focuses on shared challenges, but recent successes 
should not go unnoticed.
    We discussed the 10-year MOU and the $38 billion of support 
that is the largest U.S. aid package ever and something for 
which I think President Obama deserves real credit. Israel 
officials with whom I meet regularly, including most recently 
Defense Minister Lieberman, say that our security cooperation 
intelligence-sharing has never been stronger. But I worry that 
with so much to gain by further cooperation, we are allowing 
actions and rhetoric by hardliners, both hardliners in Israel 
and extremist Palestinians and statements by American 
politicians are driving us further apart.
    So I think it is critical for there to be progress towards 
the long-hoped-for two-state solution for Palestinians to give 
an unequivocal recognition of Israel's right to exist as a 
Jewish state and to stop incitement and to direct their efforts 
towards sorting out their leadership in a plan for peace, but 
both sides have to consider the extent to which their words and 
actions contribute to these dangerous divisions that exist and 
continue to grow. And I am concerned that both sides need to 
listen to each other and will have to make real sacrifices to 
come together for a lasting peace.
    As we discussed, demographic challenges facing Israel in my 
view are real and inevitable and put real pressures on the 
possibility of a Jewish democratic state in the long run, but 
that is not our only challenge.
    I was concerned and disappointed that President Trump did 
not explicitly support a two-state solution in his remarks 
yesterday, something that for decades has been a fundamental 
pillar of bipartisan support for Israel. And as Senator Kaine's 
questioning and your responses a few minutes ago suggested it 
is very difficult to articulate a rational plan or a framework 
in which Palestinians would accept the sort of status required 
for a one-state solution to have any viability.
    Tomorrow, I will be meeting with a wide range of 
representatives of the Jewish community in my home State, and 
many of them have expressed concern, given previous statements 
you have made that were intemperate or even insulting about 
whether as Ambassador they would be welcome, valued in the U.S. 
Embassy in Israel. And I am concerned that successful diplomacy 
means considering the consequences of our rhetoric and our 
behavior.
    So, Mr. Friedman, my central question really is do you 
believe that in the role of Ambassador if confirmed that you 
can act in a way that welcomes and celebrates and validates the 
entire American pro-Israel and Jewish community in a way that 
really advances and sustains bipartisan support for Israel and 
in a way that steers the Trump administration and its agenda in 
the Middle East towards peace and away from division and 
partisanship?
    Mr. Friedman. Thank you, Senator, for that question. The 
answer--the short answer is yes. I think it is extraordinarily 
important, as we discussed yesterday, to cause the issue of 
Israel to not be a political football. It never has been in the 
past. I am--I am not--I am certainly not immune from criticism. 
I deserve the criticism and I have probably contributed to the 
problem, but many people in the Jewish community and the pro-
Israel community have become more partisan, more separated 
when, at the end of the day, as I said earlier, they all 
support Israel, they all love this country, and they all want 
peace. And I think on those common footings it is important to 
reunite the pro-Israel community. And I will pledge to you that 
I will do everything I can to do that, and I will be inclusive 
and respectful of different views. And if I am fortunate enough 
to be confirmed, I will solicit and very seriously consider all 
the views of people who in good faith want to strengthen the 
bond of the United States and Israel.
    Senator Coons. I appreciate that. I cannot remember a 
previous confirmation hearing for an ambassador that was 
interrupted repeatedly by protests. Clearly the campaign, the 
rhetoric of the campaign, the explosive environment in the 
Middle East, the longstanding deep divisions within Israel and 
in the region between Israelis and Palestinians and the 
regional adversaries excites very intense passions. And your 
statements have been intemperate and in many cases 
inappropriate and insulting, and that has been a subject of 
great back-and-forth today.
    Let me ask, if I might, just two simple and concrete 
questions. Do you support or will you advocate for Israeli 
annexation of the West Bank or of land in the West Bank?
    Mr. Friedman. I will not.
    Senator Coons. And do you believe a two-state solution is 
the most ideal path towards peace?
    Mr. Friedman. I think it is the most ideal. I think it is 
the path that has received the most thought and effort and 
consideration. Obviously, it has been tried for a long, long 
time and we continue to wrestle with it. Smarter--much smarter 
people than me have tried to make progress and have failed but 
it still remains, I believe, the best possibility for peace in 
the region.
    Senator Coons. Thank you, Mr. Friedman. Thank you, Mr. 
Chairman.
    The Chairman. Senator Young.
    Senator Young. Mr. Friedman, I enjoyed our time together in 
the office. We spent roughly an hour talking about a full range 
of topics pertaining to U.S.-Israel relationship and more 
broadly the lack of stability in the Middle East, our national 
security, and so on. I think I shared with you that I was a 
Marine Corps intelligence officer in a prior life, and my role 
was to serve with a unit that flew around drones, which were 
jointly developed with the State of Israel. I came to 
appreciate through that experience the importance of 
information-sharing between our two countries and also 
technology development. And during my recent years as a Member 
of Congress, I have also come to appreciate the importance of 
military aid in arms sales.
    Israel and the U.S., we both understand, confront common 
threats and we have shared ideals. And our military cooperation 
benefits both countries. So I just need public reassurance here 
that, if confirmed as Ambassador to Israel, would you do all 
you can to strengthen and deepen, even further these military-
to-military efforts of cooperation between our countries?
    Mr. Friedman. Senator, I would do all I could to strengthen 
that. Whether on a strategic, technological, military basis, it 
has been a--it has been one of the great success stories of the 
relationship and I think very much benefiting both countries, 
and I will do everything I can to continue to improve and 
strengthen that level of cooperation.
    Senator Young. Sure. Well, that is encouraging. Closer to 
home, we have been doing our part in the State of Indiana. The 
Indiana National Guard has a longstanding relationship with the 
Israel Defense Forces since at least 2010, our Guard has joined 
counterparts from Israel in conducting combined training 
exercises. Our guardsmen have regularly traveled Israel from 
training. We have had training occur in Jerusalem, my home town 
of Bloomington, Indiana, various other sites, the Muscatatuck 
Urban Training Center, which I know the IDF has found 
particularly helpful in preparing for their own defense.
    In 2016, 65 Indiana National Guard soldiers participated in 
an operation known as United Front. It was a small unit 
exchange in Israel and conducted--they were search-and-rescue 
operations that were conducted there.
    So I just urge you to continue to seek more of these 
opportunities should you be confirmed as Ambassador, as I think 
is highly probable.
    I would like to turn briefly to the issue of the prospect 
of peace between the Palestinians and Israel. Do you believe an 
acceptable agreement can be reached between the Israeli 
Government and the Palestinians with Mahmoud Abbas at the helm?
    Mr. Friedman. I would hope so, Senator, but I think the 
challenges are daunting. I would point out that President Abbas 
refuses to accept Israel as a Jewish state. He has made that 
position quite clear. And obviously, as Senator Johnson noted, 
the Palestinian Authority, while undoubtedly preferable to 
Hamas and to their credit they have engaged with Israel very 
productively in security matters, but I still think they have 
positions that are inconsistent with lasting peace.
    Senator Young. So you have spoken to the challenges. Do you 
see a successor with whom we might be able to do business in a 
much easier fashion? And maybe you could speak to what is 
perceived by some to be a chaotic succession crisis occurring 
among Palestinian leaders?
    Mr. Friedman. Well, there is--there appears to be a crisis 
almost by definition when you have a President who has exceeded 
his elected term by I think it is seven or eight years now past 
his electoral mandate. I think--I hope that there are--that 
there is a new generation of Palestinians that wants the same 
thing that everybody wants, which is a better life, better 
opportunity for their children, and to live in peace. I would 
be--it would just seem obvious to me that they are out there, 
and I know some Palestinians who are just like everybody else. 
And I would venture that the vast majority just want what 
everybody in the world wants. And we have to do what we can to 
help foster both economically and politically the development 
of that political class and an accompanying middle class to try 
to draw out that type of leadership.
    Senator Young. Yesterday, as has been mentioned, Prime 
Minister Netanyahu laid out his two prerequisites for peace: 
recognition of a Jewish state and Israeli security control over 
the entire area west of the Jordan River. What is meant by 
security control over the entire area west of the Jordan River?
    Mr. Friedman. Yes, this has been I think the Prime 
Minister's position since 2009. It is really the analog to the 
naval control with regard to Hamas. There is an extraordinary 
risk of weapons transfers in that area. If the Israelis did not 
block the flow into Gaza, there would be even more horrific 
weapons than there are now. And I think the Prime Minister is 
concerned of a comparable flow of weapons out of Jordan into a 
Palestinian state. And I think that, as has been explained to 
me, an Israeli red line in terms of their own security. I am 
not a security expert but I understand that is very important 
to the Prime Minister.
    Senator Young. This would likely require a perpetual 
presence of military forces on the ground in that area, though.
    Mr. Friedman. I think it would--I do not know how control 
would be achieved. Again, I am not an expert in that. But it 
would require some military control of the border, yes.
    Senator Young. Can you conceive of Palestinian leaders who 
would be amenable to this sort of situation?
    Mr. Friedman. Not today. I think that, ultimately, it would 
be in their interests as well to stop the flow of arms into a 
state that ideally should be demilitarized. So, again, if 
calmer voices prevail, it should not be a deal-breaker, but at 
this point, I think the answer is no.
    Senator Young. And lastly, what role might the Saudis and 
Emiratis play in moving forward, helping to advance a potential 
agreement between the Palestinians and Israelis?
    Mr. Friedman. I think the Saudis, the Emiratis, the 
Egyptians, the Jordanians, perhaps others, as we heard 
yesterday in the Prime Minister's speech, seem to be far more 
amenable to productive discussions than in the past. Israel 
does not seem to be the third rail that it once was with regard 
to these countries, and from what I heard at the press 
conference yesterday, just based upon what I heard, it would 
seem to me that that is a very productive avenue for future 
discussions.
    The Chairman. Before turning to Senator Booker, I think the 
Prime Minister has been really clear that when he talks about 
security in the West Bank, he is talking about ad infinitum, 
perpetual, forever military presence. So I do not think he has 
been equivocal on that. Do you agree with that?
    Mr. Friedman. Yes.
    The Chairman. Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    I want to thank you, first of all, for coming to my office 
yesterday. I really appreciated the respect you showed me, and 
I appreciated our conversation, especially to see the depth of 
your love for the State of Israel, something that I admire.
    Mr. Friedman. Thank you.
    Senator Booker. I want to zone in, though, on some of the 
things that have already been said and discussed, but I have 
grave concerns about the volume and breadth of your past 
statements, as we discussed a bit in my office. You stated in 
your testimony that you regret some of this particular hurtful 
language that you used against not only President Obama but 
also Secretary Clinton, someone who spent her entire 
professional career in service, two people who have sent a 
considerable amount of their careers in service. You talked 
about President Obama as engaging in ``blatant anti-Semitism'' 
and other words. You do not believe President Obama is an anti-
Semite, do you?
    Mr. Friedman. Not at all, Senator. I do not believe that 
for a second. My only comment was I thought the language that 
the President used in--with regard to the Iran deal when he 
accused wealthy donors of making common cause with the Mullahs 
I thought that was--at least I perceived it to be something 
which was a historically anti-Jewish canard that----
    Senator Booker. Well, the comments you have about the--
about President Obama were not just about that incident. You 
said it is ``blatant anti-Semitism,'' ``sycophantic missions.'' 
But let us move on to Senator Kaine, who you just heard give a 
very thoughtful discussion about the State of Israel. You call 
him an Israel-basher. You do not believe Senator Kaine is an 
Israel-basher, do you?
    Mr. Friedman [continuing]. No. I had a great meeting 
yesterday with Senator Kaine and learned a lot that I did not 
know about him, and I completely retract that statement. It was 
absolutely wrong.
    Senator Booker. And the comments go on about sitting 
Members of the United States Senate that you have made in the 
past. Secretary Clinton, former Senator Clinton, you talked 
about her having anti-Semitic sentiments, harboring anti-
Semitic sentiments. Senator Schumer, as has been discussed 
before, one of the--again, someone who shares your depth of 
love for the State of Israel, it has been read already but you 
said ``No matter how he ultimately votes, by making the 
decision--such a close call, which is plainly it should not 
be''--and these words are very dramatic--``Senator Schumer is 
violating the worst appeasement of terrorism since Munich.'' 
That obviously to me I try to find other Ambassadors for posts 
such as this as Israel who said such things that--you would 
agree that we are not just policy disagreements or not just the 
heat of a politician. Those are comments that actually demean 
the character of another human being. Would you agree that they 
were demeaning to the character of those individuals?
    Mr. Friedman. I tried to criticize the words rather than 
the person, but I can certainly understand how it extended to 
the character. It was not intentional, but I certainly 
understand that.
    Senator Booker. Sir, you and I both, from our family 
histories, know a lot about people demeaning folks. We know a 
lot about hate speech and hate words.
    Mr. Friedman. We do.
    Senator Booker. And we know that when people dismiss things 
as just words or, hey, it was just politics, that they are 
belittling actually the harm and the damage that can do to 
individuals and entire communities. You would agree with that?
    Mr. Friedman. I would.
    Senator Booker. You also attacked the State Department with 
a hundred-year history--you said, ``The State Department, with 
a hundred-year history of anti-Semitism, promotes the payoffs 
of corrupt Palestinians in exchange for their completely 
duplicitous agreements to support a two-state solution.'' You 
also said after--four months ago about--you gave a speech in 
which you referred to the State Department as ``The State 
Department has been anti-Semitic and anti-Israel for the past 
70 years.''
    The Ambassadors, Republican and Democrat, who wrote a 
letter that has already been entered in the record, but they 
really took issue with someone who is now going to be working 
with the State Department to cast such a broad net over the 
incredible professionals that work there who often put 
themselves in harm's way for this country, who make sacrifices 
for the family of resources. They write in one paragraph, ``Mr. 
Friedman has accused President Obama''--as we have already 
discussed--``and the entire State Department of anti-Semitism. 
He has propagated the false conspiracy theory that Hillary 
Clinton's advisor, Huma Abedin, has well-established ties to 
the Muslim Brother hood. He has referred to the Anti-Defamation 
League as morons. He has characterized supporters of J Street, 
a liberal Jewish organization, as kapos, the Jews who 
cooperated with the Nazis during the Holocaust.'' They say that 
``These are extreme radical positions.''
    Words like kapos resonate with me in particular because 
they reflect words, again, that you and I both know personally 
from our family histories. How cruel, mean-spirited that kind 
of language is, you understand that, right?
    Mr. Friedman. I understand it, Senator, and in addition to 
understanding it, in the course of thousands of emails I 
received in response to those comments, I received an email 
from--I mean, some of those comments were unrepeatable, some 
were frightening, but a few of them were extraordinarily 
touching, one from a Holocaust survivor who wrote me and said 
that he survived the Holocaust, he loves Israel with all his 
heart. He disagreed with me on the best tactics to support 
Israel, but he felt that I had invalidated the good faith of 
his positions. And I can tell you, the last person in the world 
I would want to offend would be someone like that, and it has--
it is something that I deeply regret.
    Senator Booker. So your past comments to me--and I 
understand that you are apologizing, but you and I both know 
the difference between apology and atonement, correct?
    Mr. Friedman. I think an apology might be the first step to 
atonement.
    Senator Booker. Yes, sir. You are looking to be in a 
position as a diplomat right now at a time where you are 
entering an area of the globe that is delicate to say the least 
in which there is tremendous passion and heart invested, in 
which my love and your love of the State of Israel often, as 
you said earlier in your testimony, a measured word the wrong 
way can have great ramifications.
    Mr. Friedman. Yes.
    Senator Booker. I have deep concerns with that history you 
have of uttering words, writing them, thoughtful ones and not 
understanding the ramifications even in the American context 
that those could have. I just want to ask and turn to another 
just simple question I asked you about the USAID programs going 
on in the West Bank. Do you have intention to visit the West 
Bank--should you be confirmed as Ambassador?
    Mr. Friedman. If the State Department rules are changed and 
I am permitted to do so.
    Senator Booker. I appreciate you recognizing that. Do you 
have intention of visiting the Temple Mount?
    Mr. Friedman. No, I never have visited. I have been to 
Israel countless times. I have never visited the Temple Mount.
    Senator Booker. Mr. Chairman, I am grateful for your 
allowance of going over my time. Thank you, sir.
    The Chairman. Thank you.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you, Mr. Friedman, for being here, for your 
willingness to serve.
    Let me begin by saying that I find this whole process to be 
unreal. I mean, this sort of ordeal you are being put through 
to account for all these words, in particular given some of the 
groups that are ratcheting all this up. This group J Street 
that, for example, a few years ago invited the chief 
Palestinian negotiator Saeb Erekat to address their conference, 
a person who has justified the murder of Jews as self-defense, 
as a person they invited to speak at their conference. This is 
a group who has routinely attacked people who hold my views 
with content that I find to be a smear and, quite frankly, a 
mischaracterization of our positions.
    The second thing I think you are confronting--not in this 
hearing per se but writ large--is what I believe is the sort of 
existent orthodoxy among many of the people in the State 
Department and among the so-called smart people in American 
foreign policy that somehow the United States needs to be a 
fair and balanced arbiter in this situation that we are facing 
in the Middle East. I do not understand that view. I really do 
not. First of all, my view is that Israel is our strongest ally 
in the region. My view is that, in addition to a moral 
obligation that we have to protect the right of the Jewish 
people to a homeland, especially one founded in the aftermath 
of the Holocaust, they also happen to be the only pro-American, 
free-enterprise democracy in the region. That alone is reason 
enough to be strongly aligned to them.
    The second point I would make is that I find it startling 
is all these so-called professionals in the State Department 
and, again, among the foreign policy elite, are out there all 
the time--I very rarely hear them stand up and speak 
vociferously on the sorts of activities that are being 
conducted by some in the Palestinian leadership, yet they are 
never, never reluctant to step forward and lead the efforts to 
condemn Israel time and again. And this is what you are going 
to confront when you are confirmed in terms of some in the 
State Department.
    There is also this misconception that continues to be 
spread around in the letters and all this whole dialogue that 
is around this that you somehow have issued a wholesale 
rejection of the so-called two-state solution. I think you have 
already testified here today and you have said before, and 
others have said as well, that in a perfect and ideal world you 
would have two independent states, a Jewish state and a 
Palestinian state, peacefully side by side living with one 
another.
    The problem is there are significant impediments to that, 
perhaps the least of which is the existence of Jewish 
settlements in Judea and Samaria. For example, I would say that 
one of the biggest obstacles to that would be efforts by the 
previous administration to pressure Israel and to impose upon 
them a negotiated settlement outside the bounds of what the 
Jewish people and Israel support and what is in the interest of 
the nation of Israel.
    I would say a bigger impediment is the unwillingness of the 
leadership of the Palestinian Authority to recognize Israel's 
right to exist as a Jewish state. And that is the key phrase, 
not just Israel's right to exist, but as the homeland for the 
Jewish people. That is a big impediment to a deal because how 
are you going to negotiate a peaceful coexistence with a 
neighbor who does not recognize your right to exist? What are 
you negotiating? The terms of your destruction? I think that is 
a much bigger impediment.
    Or how about the wholesale, systematic indoctrination of 
young Palestinians into a doctrine of hatred and justification 
for the killing and the murdering of Jews that begins sadly, 
tragically, and outrageously at a very young age? I think that 
is a pretty big impediment.
    You know what else is a big impediment? These international 
efforts to impose on Israel a negotiated solution along the 
terms that other countries think are appropriate. I think that 
is a bigger impediment.
    You know what else is a bigger impediment? The incitement 
of violence by leaders of the Palestinian Authority. And that 
is not widely reported because often--that does not make it 
into their English press releases, but when they go around 
justifying these attacks, when they dedicate monuments to so-
called martyrs who are nothing but terrorists, when they spread 
ridiculous rumors about what the Israel Government is going to 
do on the Temple Mount or the Dome of the Rock, these things 
that incite violence.
    And so I view these things as bigger impediments than all 
the other things, and I think it is accurate to say that your 
position, it is not that you are opposed to this ideal outcome 
in which there would be two states but that you recognize that 
at this moment, given the circumstances that exist in the world 
today and in that region in particular, it is not likely to 
have that outcome.
    And hopefully, that will change. Hopefully, the 
Palestinians will have better leadership. Hopefully, they will 
be more prosperous. Hopefully, they will have an opportunity to 
grow their economy and their security, and maybe in 20 years, 
15 years, 5 years, sooner rather than later we all hope, there 
will be the opportunity for this to occur. But right now, those 
conditions are perhaps not in place, and the worst thing we can 
try to do is to go in there and impose on our most loyal and 
important ally in the region a deal that is bad for their 
security and bad for their future.
    Is that an accurate characterization of your feelings with 
regards to the two-state solution?
    Mr. Friedman. I think it is, Senator.
    Senator Rubio. Let me just say, Mr. Chairman, I do want to 
enter into the record a letter from the Union of Orthodox 
Jewish Congregations of America.
    The Chairman. Without objection.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 59.]


    Senator Rubio. One last point that--as an ambassador, at 
the end of the day your role will be to represent, advocate 
for, and implement the policy of the President, is that 
correct?
    Mr. Friedman. One hundred percent correct.
    Senator Rubio. And so on any issue, whether it is the 
location of the Embassy, whether it is our position on any 
given matter, it is your job ultimately to be an advocate for 
the decisions made from the Oval Office and by this 
administration, not your personal views?
    Mr. Friedman. Sir, I will be an advocate for the President 
in the same way that I would be an advocate for clients. My 
personal views are completely subordinated to the views of the 
President and the Secretary of State.
    Senator Rubio. All right. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Mr. Friedman, for taking time to come and 
meet with me yesterday.
    I am not going to relitigate the concerns that people have 
raised about some of your statements with respect to Senators 
and the former President, though I share those concerns. But I 
am concerned about an article that you wrote in November of 
2015 talking about Russia's intervention in Syria where you 
held up that intervention as a model and predicted that they 
would succeed in defeating ISIS. And the title of the article 
is ``Learn a Lesson from Russia.'' And I would ask, Mr. 
Chairman, that it be entered into the record.
    The Chairman. Without objection.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 69.]


    Senator Shaheen. I think at that time we had already seen 
news reports about Russia's failure in fact to go after ISIS 
and their motives to hold up the Assad regime. And we have seen 
since then their indiscriminate bombing of civilians in Aleppo, 
their blowing up of aid workers, their bombing of hospitals. So 
I would just ask, do you still believe that in the last year 
the Russian military has done more to defeat ISIS than the 
United States?
    Mr. Friedman. No. And my--I was not intending to in any way 
praise Russia. My point there was simply that Russia had--
Russia used ISIS as a platform, an excuse if you will, to enter 
the region to prop up the Assad regime. It was I thought a 
deplorable act. My--the point of my article was simply that I 
lamented that the United States had not acted as it had 
threatened to do when the President set the red line to--and 
left the area open to a vacuum. But much has changed since 
then, and the United States has certainly since that time done 
much more to defeat ISIS than Russia.
    Senator Shaheen. I appreciate that, though you did in that 
article characterize the situation as, and I quote, ``American 
leaders forced their stellar military commanders to fight with 
two hands and a leg tied behind their backs. Vladimir Putin 
gets it. He may be a thug, as he was recently described, but he 
knows how to identify a national objective, execute a military 
plan, and ultimately prevail.''
    In the article you also refer to the Global Coalition to 
Counter ISIL as, I quote, ``a coalition of cowards, 
freeloaders, and hypocrites led from behind by the American 
President.'' Do you think that kind of rhetoric is conducive to 
securing partners in this fight against ISIL?
    Mr. Friedman. No, I do not. I think that was a view I 
raised as a private person without that objective.
    Senator Shaheen. So I appreciate the comments that you made 
about ensuring that Israeli Arabs are treated fairly. I 
appreciated that comment when you met with me yesterday. I have 
heard troubling stories from Arab Americans who say they have 
experienced discrimination by Israeli authorities at the 
Israeli border for no other reason than because they have Arab 
last names. And as someone who has an Arab last name--as you 
can probably tell, it is not me; it is my husband who is of 
Lebanese descent--but how would you, as Ambassador, address 
that concern that you hear--should you hear that from Arab 
Americans who feel like they have not been treated fairly?
    Mr. Friedman. Well, I would obviously be the Ambassador for 
the benefit of Arab Americans, as well as any other Americans, 
and it is inexcusable for any country to discriminate on the 
basis of one's nationality, religion, or otherwise. I would 
want to engage with the Israelis and understand the process 
that they were using for their immigration and encourage them 
obviously to have their own national security issues, which I 
think we all respect, but that is not a basis to engage 
especially against the American population in any process that 
would be discriminatory. So I would certainly oppose that and 
work to make sure that it did not proceed.
    Senator Shaheen. Thank you. You have written that Israel's 
policy of schizophrenia of criticizing disloyal Arab citizens 
while simultaneously bestowing upon them the benefits of 
citizenship simply is not working. Can you clarify if there are 
any circumstances under which citizens of Israel should be 
stripped of their benefits and what benefits you think could 
reasonably be removed?
    Mr. Friedman. I think this was in the context of criminal 
activity, not on the basis of any--not on the basis of their 
nationality certainly. Just to be clear, I do not support any 
activity in Israel, this country, or anywhere else that would 
be based upon one's nation of origin.
    Senator Shaheen. So how do you feel about the President's 
Executive order on immigration?
    Mr. Friedman. It was--I accept the President's 
representation that it was a temporary ban to keep the country 
safe.
    Senator Shaheen. Even though we had not had any incidents 
from terrorist from any of those seven countries that we could 
point to?
    Mr. Friedman. Senator, I do not know. I was not involved in 
that order, and I do not have access to the classified 
information, so I just do not know. I am sorry.
    Senator Shaheen. Thank you. I want to just end by reading 
you excerpts from a letter that I received from a constituent 
from Concord, New Hampshire. She says in this letter, ``As a 
Jewish constituent of yours whose great-uncle survived the 
Holocaust, I am appalled by David Friedman's likening of 
liberal Jews to Nazi collaborators. My great-uncle Leon Messer 
was born in 1920 in Poland. He was interns in the notorious 
Auschwitz concentration camp. He lost both his mother and his 
sister during the Holocaust. He was only able to survive due to 
his talent for fixing watches.''
    She goes on to say, ``It is such a shame that someone who 
survived the brutality of the Nazi regime and who lost so many 
loved ones in the Holocaust would be disparaged today by the 
Israeli Ambassador nominee, David Friedman, as a kapo or Nazi 
collaborator simply for standing up for what he believes is 
right.''
    Mr. Friedman, what do I tell Alicia, my constituent, about 
why she should feel differently that you could in fact 
represent her and that you are not disparaging people who have 
her views?
    Mr. Friedman. If you--I will be happy to give you--give to 
you my number and I would apologize to her personally. I am 
sorry she feels that way, and I respect her feelings and I 
would like to make amends.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you.
    The Chairman. Thank you. Before turning to Senator Flake, I 
did not use any of my time for questioning. It is just an 
observation.
    First of all, thank you for being here and I know we had a 
very good meeting.
    You are here today having to recant every single strongly 
held belief that you have expressed almost. And I am just 
curious about this job and its importance to you to be willing 
to recant every single strongly held belief that you had. I 
just wondered if you would share that with us because it is 
interesting to listen and, you know, you have done a lot of 
that and I appreciate that. And sometimes when people run for 
public office, they say things and they have to massage them to 
a degree. But this is fairly extraordinary, and I wonder if you 
would share with us why you are willing to do that to serve in 
this capacity.
    Mr. Friedman. The opportunity to serve my country as 
Ambassador to Israel would be really the fulfillment of a 
life's dream, of a life's work, of a life of study of the 
people, the culture, the politics of Israeli society. One of 
the great things I love about this country is the fact that it 
was the first country to recognize Israel and has stood with 
Israel steadfastly through thick and thin over very, very many 
challenging circumstances.
    I believe that, based upon my relationship with the country 
and its people, I can be helpful; I can do good. I believe 
that, based upon my relationship with the President, I can help 
him get to the right place and, as he said colloquially, to 
make a deal, to bring peace to the region.
    My views are my views. Some of them I recant certainly the 
rhetoric and the inflammation that I have caused, the hurt that 
I have caused. I need to do a much better job going forward and 
I intend to and I will with regard to a diplomatic mission. It 
is very different obviously than being a private citizen and 
writing articles.
    But this is something I really want to do because I think I 
can do it well. And there is not more important to me than 
strengthening the bonds between the United States and Israel.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you, Mr. Friedman.
    Let us kind of continue on that theme for a minute. How 
important is it--Congress has really been the bulwark of 
support for Israel over the years, as we mentioned--you 
mentioned in my office. It is Congress that is the enduring 
institution that has supported Israel. And it has always been 
marked by bipartisanship, that support. Can you talk about the 
importance of that?
    Mr. Friedman. I can, Senator. I think it has been the 
exception rather than the rule that the Congress has divided 
over an issue like Israel. Israel really is not a political 
issue. For the United States it is very much a moral issue. The 
United States stands with Israel obviously because Israel and 
the United States have common interests militarily, 
economically, technologically, but first and foremost, the 
relationship is on the basis of shared values. And shared 
values are not political. Shared values are that direct 
connection that the two countries have, a commitment to 
democracy, to human rights, to biblical values.
    And to me it would be greatly disappointing if I could not 
help de-partisanize--if that is a word--the relationship--the 
United States' relationship with Israel.
    Senator Flake. Thank you. Let me just address for a second 
the comments yesterday with the Prime Minister's visit, some of 
the comments that made some people report that we are no longer 
committed in this country to a two-state solution. I know that 
has been addressed at length here but just one aspect of it. Do 
you see--for one, I do not see that break. I think the 
framework that is most likely to product lasting peace is a 
two-state solution. But is there any likelihood at all that our 
fundamental principles is that the parties themselves, through 
direct negotiations, arrive at a solution? Is there any 
likelihood that the parties would adopt anything other than a 
two-state solution? I would just like your thoughts on that?
    Mr. Friedman. I have seen no evidence of an appetite by the 
Palestinians to a one-state solution. But I guess I would say 
if it happens, we will notice it, but I have not seen it yet.
    Senator Flake. Right. But the bedrock principle is still 
direct negotiations between the parties----
    Mr. Friedman. Yes.
    Senator Flake [continuing]. And not have a solution imposed 
by outside organizations, be it the General Assembly or 
Security Council or any other outside body----
    Mr. Friedman. Correct.
    Senator Flake [continuing]. Including the United States?
    Mr. Friedman. That is correct, Senator.
    Senator Flake. Okay. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you for being here today and for your willingness to 
serve.
    I think building off of the opening question from Senator 
Flake, the reason many of us are asking you these detailed 
questions about statements that you have made in the past about 
those who have sometimes been supportive of diplomatic 
engagements in the region have not always been supportive of 
the positions that Netanyahu has taken is that we are very 
worried that support for Israel is just becoming another 
political football in this place. It used to be something that 
united Democrats and Republicans. We had differences, but what 
was most important was keeping our support for Israel out of 
the political playing field. And today, that is not the case.
    In the very short time that I have been in public service 
Israel has gone from an issue that united us to an issue that 
is now used in political campaigns in order to try to divide 
us.
    And so I think you are being asked these questions because 
we are very worried about what the future holds, and your 
nomination is one of the strongest partisans on the issue of 
Israel. Being willing to call Democrats all sorts of terrible 
names suggests that we are just in for another really rough 
stretch when it comes to trying to heal those divisions.
    And I appreciate what you said, that you want your tenure 
to be one of healing partisan divisions, but if that was really 
the intent of this administration, there are frankly a lot of 
other people who would have been better suited to play that 
role.
    And so I do want to just ask some questions here. I think 
Senator Corker is right to ask about, you know, these--this 
exceptional level of recantations and reversals. And I guess it 
is something different to me to regret words that you said than 
it is to actually change your underlying opinion. So let me 
just make sure that, on probably your most controversial 
statement, that I have this right.
    When you said that J Street and supporters of J Street are 
worse than kapos, I hear that you say that you regret those 
words, but have you changed your opinion on that matter?
    Mr. Friedman. I have profound differences of opinion with 
the J Street organization. I do not think that will change. My 
regret is that I did not express those views respectfully, 
recognizing that they are every much as entitled as I am to 
have a different view. My regrets are as to the language and 
the rhetoric. I am not withdrawing my personal views as to the 
organization.
    Senator Murphy. But is your--but is your personal view 
still that J Street and its supporters are worse than the kapos 
of the World War II era?
    Mr. Friedman. No.
    Senator Murphy. Okay.
    Mr. Friedman. That is not my view.
    Senator Murphy. Okay. Let me ask about the word anti-
Semite. You have thrown it around fairly liberally to describe 
actions of the Obama administration. And you draw a distinction 
between calling actions anti-Semitic versus calling individuals 
anti-Semitic. The pushback on that is that that phrase is a 
description of motivations. It is a description about what lies 
in someone's heart, right, the idea that someone hates Jews and 
thus carries out actions based upon that belief. So can you--I 
just want to make sure that you believe that in calling my 
words or my actions anti-Semitic that you are calling me anti-
Semitic.
    Mr. Friedman. I do not agree with that, Senator.
    Senator Murphy. Why?
    Mr. Friedman. Because I think someone could inadvertently 
or unintentionally say something that is perceived by someone 
with a long history of being exposed to anti-Semitism as being 
anti-Semitic while the speaker himself would have done it 
completely unintentionally or with even good intentions. 
Sometimes words are uttered by one and perceived by the other, 
and it--you know, the speaker and the recipient----
    Senator Murphy. But----
    Mr. Friedman [continuing]. Are just on different pages.
    Senator Murphy. But perception is in the eye of the 
beholder, so you are saying that the phrase anti-Semitic is 
owned by the person who hears the words? It is not about the 
motivation of the individual? So my motivations have nothing to 
do with whether my actions or my words can be described 
legitimately as anti-Semitic?
    Mr. Friedman. Well, as I said, words could be legitimately 
perceived as anti-Semitic even though the speaker would harbor 
no anti-Semitic feelings.
    Senator Murphy. And you would call--and you have no problem 
calling my actions anti-Semitic even if you believe that in my 
heart I have no desire to discriminate against Jews?
    Mr. Friedman. I can see challenging the words without 
challenging the motivations of the speaker.
    Senator Murphy. Another one of your more controversial 
statements was your hope that Donald Trump would fire 
individuals in the State Department who have opposed policies 
that you and he have espoused to, such as moving the Embassy. 
President Trump, through his press secretary, has said that 
those in the Department of State that do not agree with the 
President's viewpoints should get on board or get out and has 
suggested that the typical means of expressing dissent within 
the Department of State are no longer legitimate; you either 
agree with the President or you have no place in the 
administration, which would topple decades of precedent within 
the Department. Your statement suggests you agree with that, 
that the President should fire individuals who do not agree 
with positioning.
    Can you--is that also a statement that you recant and have 
reversed? Would you try to seek the ouster of individuals 
working for the Embassy that do not agree with your viewpoints?
    Mr. Friedman. No, Senator. I think any executive has a 
right to have people that support his--who are willing to 
execute his views, however they feel. Obviously, within the 
State Department it--there are tens of thousands of people who 
are entitled to their opinions and have differing views. At 
certain levels, the President is entitled to have people report 
to him who are prepared to execute his directives on foreign 
policy. He is the Commander in Chief, the Chief Executive, and 
I think he has that right.
    Senator Murphy. Well, given that you will be running an 
Embassy, last question, what level is that? You are going to 
be--you are going to have a lot of civil servants who have 
served the country very well. They will be in important 
positions like political military officers, people liaising 
with the Israeli Government. What level of individual has to 
believe in their heart in the same direction as you in order to 
maintain their position?
    Mr. Friedman. I think in my case none because I am not 
making any policies. I am simply observing the directives of 
the President. So whether people agree with me or not in the 
Embassy is, I think, completely irrelevant.
    Senator Murphy. All right. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Friedman, for your willingness to serve, 
and welcome to your family and for your patience through this 
endurance test of a hearing. I really appreciate the chance to 
get to know you a little bit better and talk about the 
leadership opportunities we have with the United States, with 
Israel, and our great opportunities between the two both from a 
security standpoint and economic standpoint.
    I had the last--chance the last time I was in Israel to 
visit with Senator Cardin, Senator Markey, Senator Merkley just 
about a year ago, perhaps--I think it was March if that is 
correct, Senator Cardin. And the first time I had the 
opportunity to visit Israel was I think August of 2011 with a 
few other Members of Congress. And we went to IDF headquarters 
and we visited with a general. I believe at the time he was the 
head of Israel--Israeli planning division, General Eshel I 
think if I recall correctly was his name. And one of the--one 
of my colleagues asked a very simple question--I thought was 
simple--to General Eshel at the time and it was, you know, what 
is your view of U.S. foreign policy in the region? And after 
about 45 seconds or a minute of hemming and hawing and the 
trying to avoid the question, my colleague said please just 
give us the answer; you are not going to offend us.
    General Eshel then spent several minutes frightening us and 
talking about his answer. And his answer was simply this: They 
did not know where the United States foreign policy was. They 
did not know where the United States would be tomorrow because 
they did not understand what we were doing in the region, who 
our friends were and who our friends would be. That was 2011. 
There was a lot happening around that time frame.
    Sometime later, I had the opportunity to go back to Israel 
and visit with General Eshel again. Now, General Eshel had no 
reason to remember me, but General Eshel made--I asked--was 
able to ask him the same question: What is your view of U.S. 
foreign policy in the region? And I was startled with the same 
answer.
    Today, Mr. Friedman, what would you say Israel views the 
U.S. foreign policy as and what do you believe can be 
accomplished under your leadership as Ambassador to Israel that 
they would walk away with understanding the firm commitment the 
United States has to our great ally, friend, Israel?
    Mr. Friedman. I think the most important thing in the 
relationship between our two countries is something that I 
picked up this morning or late last night in the read-out from 
the meeting between the Prime Minister of Israel and the 
President, which is that there be no daylight between the two 
countries. It does not mean that there should be no 
disagreements, but Israel has no other friends like the United 
States. Sometimes they do not have any friends at all other 
than the United States. And when the rest of the world sees 
that the United States and Israel are not aligned, they--there 
is a risk that they will become more aggressive against Israel.
    So I think that loyalty and respect and no daylight is 
the--I think everything else is sort of details and can get 
worked out. And it is what I think Israel needs from us, and I 
think that is where the President is now.
    Senator Gardner. Thank you, Mr. Friedman. The strategic 
outlook for Israel in the region, where are we going with Iran 
right now? I do not know if you have had an opportunity to 
address the Iran deal, what is happening in Jordan, the 
stability of Jordan obviously key to security in Israel. And 
could you talk a little bit about the strategic outlook for the 
region?
    Mr. Friedman. I think the Gulf States, the Egyptians, the 
Jordanians, and the Israelis are all united--perhaps 
inadvertently so--but they are all united in a common concern 
about Iran. Iran is a state-sponsor of terrorism. I think that 
without relitigating the Iran deal--obviously, it is no secret 
that I was very much against the Iran deal--but sitting here 
today, Iran just recently tested ballistic missiles. I am not 
sure why anyone would have a ballistic missile except to 
deliver a nuclear warhead. They continue to provoke the United 
States. They--as the Prime Minister of Israel said yesterday, 
they write in Hebrew on their missiles ``destroy Israel.'' Now, 
Israel does not have the distance between itself and Iran that 
we have, and we all know how nervous they are about it. And I 
think all the other Sunni states are nervous as well.
    I do not think this is something that I will be engaged on, 
but I certainly support the President's view that we need to 
reinstitute leverage on Iran to hold them to the very first 
page of the JCPOA, which says that Iran will not develop or 
acquire a nuclear weapon. I am not sure what the other pages 
are. Given that first page, I am not sure I would need another 
90, but that page is the page that we ought to be focusing on 
and enforcing as hard as we can.
    Senator Gardner. Thank you, Mr. Friedman.
    Mr. Chairman, I had--when we were in Israel with Senator 
Cardin's delegation, we were there over Purim I believe it was, 
and we visited Iron Dome missile battery--rocket battery right 
outside of Ashkelon I think if I remember correctly. And as the 
celebration was taking place in Ashkelon, you could hear the 
voices participating in that holiday right by the Iron Dome 
facility. And so I think the mention of daylight between our 
two nations is important and that we have to spend time, the 
United States and Israel, assuring and restating the fact that 
there is no daylight between our two nations. And I look 
forward to working with you to make that happen.
    Mr. Friedman. Thank you, Senator.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Friedman, congratulations on the nomination and welcome 
to your family.
    You are a lawyer, and as a lawyer, you have obligations to 
clients. Could you describe succinctly what is your obligation 
to any given client?
    Mr. Friedman. Zealous advocacy, loyalty, confidentiality.
    Senator Menendez. Faith and fidelity?
    Mr. Friedman. No question.
    Senator Menendez. So who is your client if you ultimately 
achieve, confirm your position?
    Mr. Friedman. Well, I would pledge to support and defend 
the Constitution of the United States, and I interpret that as 
having, in the broadest sense, an obligation to the entire 
country.
    Senator Menendez. And in that context it is the national 
interest and security of the United States that one would 
pledge fidelity to, is that not correct?
    Mr. Friedman. Yes, sir.
    Senator Menendez. And in that context, you know, you have 
presented yourself here and in our very long private 
conversation as someone who is smart and measured and 
temperate, yet I get a sense that your love for the State of 
Israel overwhelmed your language, which was not necessarily 
temperate at the end of the day. And so the question is we 
cannot have an ambassador who ultimately will be moved, as much 
as they may be passionate about the country that they are being 
sent to or by the Prime Minister of that country, as much as we 
may have the greatest of relationships, that will not bend 
their will to that but will bend their will to what is in the 
national interest and security of the United States. Can you 
tell the members of this committee that that is in fact where 
your loyalty and commitment is?
    Mr. Friedman. That will be 100 percent my loyalty and 
commitment and to no one else.
    Senator Menendez. Now, you have rejected many of the past 
comments that have been made; I will not go through them again. 
In some cases I have actually heard you use the word you have 
apologized to individuals. I take your rejection of some of 
what you said as intemperate remarks, also an apology to those 
who may be affronted by them. Is that a fair statement?
    Mr. Friedman. Yes.
    Senator Menendez. Now, let me ask you this. When you came 
to see me, I was quite interested in hearing from you 
unsolicitedly--I asked you many questions, but unsolicitedly 
you spoke about promoting economic development in the West Bank 
and helping to build a strong Palestinian middle class. We have 
not heard a lot about that today. Can you talk to me a little 
bit about that?
    Mr. Friedman. There are--there is business activity in the 
West Bank. There are people--there are businessmen in the West 
Bank who are building industries. The unemployment rate in the 
West Bank is too high. The only way I can think of to bring it 
down is to foster that type of industry.
    I would like to work with Israel to make the commercial 
environment in the West Bank less burdensome. There are issues 
of water, there are issues of electricity, there are issues of 
the movement of goods and services. There is also obviously 
security considerations that overwhelm everything else. But 
technologies are improving. Security can be less intrusive now 
than it has been in the past. I think Israel could probably do 
better, and I--without a specific instance, I think they could 
do better. And I think we could in--as part of the effort 
within the region, the Gulf States, the Egyptians, the 
Jordanians, to try to improve the Palestinian economy. I think 
we could look to some of those--certainly some of the wealthier 
nations to help.
    Senator Menendez. So some of the ultimate efforts, the 
underpinnings necessary to achieve the peace that we all 
desire, it would be fair to say that in one context building 
the economic livelihood and abilities of Palestinians to 
realize their hopes and dreams and aspirations is an important 
one. Is that not fair to say?
    Mr. Friedman. I think it might be the most important one.
    Senator Menendez. And you share in that--to the extent that 
the administration and the Congress are seeking to pursue those 
goals, you share those goals as well, I would assume?
    Mr. Friedman. I do.
    Senator Menendez. Now, you left out of your statement 
when--I guess for purposes of time something that I found 
interesting. You supported an entity called United Hatzalah. I 
do not know if my pronunciation is right, but ``an Israeli 
organization of volunteer first responders that uses advanced 
technology to weave through traffic to provide emergency 
services and save lives.'' What makes Hatzalah so special is 
that ``It is comprised of volunteers from the entire spectrum 
of the Israeli population--Jews, Muslims, and Christians, 
religious and secular, right and left wing. They all operate 
under a single credo: treat patients in the order of the 
severity of their affliction and never let any other 
considerations--political, religious, or otherwise--influence 
your commitment to saving lives.'' And you go on to say, 
``Hatzalah represents the best of the Israeli people.''
    Does Hatzalah capture the essence of your feelings towards 
both Palestinians and Israelis?
    Mr. Friedman. It does, Senator. And in fact I was in Israel 
this past summer at a session of the Knesset when an eight-
year-old boy gave an award to a Muslim volunteer at United 
Hatzalah. The Muslim volunteer had pulled his mother out of a 
burning car a year-and-a-half earlier, saved her life, and the 
boy gave an award to this--a Jewish boy gave this award to a 
Muslim volunteer for saving his mother's life. I do not think 
there was a dry eye in the house, and it--again, this 
organization, because of the way it operates, represents the 
very best of all the Israeli people. It gives me great hope and 
optimism for the future.
    Senator Menendez. Do you believe that the life of a 
Palestinian child is of the same value as the life of a Jewish 
child?
    Mr. Friedman. Absolutely.
    Senator Menendez. Do you believe the dignity of a 
Palestinian woman is the same as the dignity of a Jewish woman?
    Mr. Friedman. I sure do.
    Senator Menendez. Do you believe that Palestinians 
ultimately have a right in some form and fashion to self-
governing themselves?
    Mr. Friedman. I do.
    Senator Menendez. You know, in addition to pursuing the 
national interest and security of the United States, I assume 
that whatever personal interests that you may have in Israel 
that you will wall those off in such a way that that will not 
be a question as well?
    Mr. Friedman. I have agreed to sell my business interests 
in Israel.
    Senator Menendez. And finally, some might think that this 
is a nomination conversion versus a true process towards 
atonement for some of the things that may have been said in an 
ideological war and in an political context and environment and 
that they are just for the purposes of achieving the goal of 
getting your nomination through. What would you say to that, to 
those who are thinking that as they sit here?
    Mr. Friedman. Senator, I am sitting here under oath, taking 
that oath seriously. My views are entirely heartfelt.
    Senator Menendez. And so what you have told me in response 
to my questions is what you have in your heart, what you have 
in your mind, and what you will do if in fact you are confirmed 
by the Senate?
    Mr. Friedman. Thank you.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Senator Paul.
    Senator Paul. Welcome, Mr. Friedman. Congratulations on 
your nomination.
    Mr. Friedman. Thank you.
    Senator Paul. I think sometimes there is a presumption that 
America knows best, is in charge of everything, and that we are 
going to tell everybody the way things are going to be, and I 
think it sort of ignores the sovereignty of other nations and 
the opinions of other nations frankly, particularly in the 
peace process, that we have decided what the peace process is 
since 1947, and it does not look like there is peace yet so 
maybe there ought to be some other thoughts.
    I am not here to say what the best peace process is, but I 
would say that maybe sometimes we need to take a step back and 
realize that any kind of peace process is going to have to take 
agreement from both sides and that what both sides of the 
conflict think is probably more important than us. It does not 
mean we should not have any role, but I do not think we should 
be so presumptuous as that we are going to dictate the role.
    The same would apply somewhat to settlements. So we can all 
have our own opinion, and I know you have your opinion on 
settlements. But it is also not our country, and we do not live 
there. And it is not saying it is not problem. I am just saying 
that I am not so sure the United States should dictate this.
    That being said, I think that we ought to be aware of the 
ramifications of policy, and we can voice our--you know, our 
opinions on these. And I think yours have been very strong 
that--you know, in favor of settlement.
    My question is is that--you know, and this has come up 
recently with the press conference. President Trump has 
actually sort of voice, you know, some hesitancy to the 5,400 
new units in the West Bank. And while I am not here to say what 
my opinion is or what the Government should tell Israel what to 
do, I would say that we ought to account for and think about 
what 5,400 new settlements in the West Bank do to the 
possibility of peace.
    Are you open to thinking about what the ramifications are 
and that there is another side to the settlement issue other 
than just saying, hey, we should build everywhere all the time?
    Mr. Friedman. Yes, I am.
    Senator Paul. Okay. I think that is the open-mindedness 
that people want to hear and want to know is are you open-
minded enough to know there is another position and that there 
are ramifications and that you will listen.
    I think sometimes, particularly in our country, we think 
everybody thinks alike in Israel. We have no idea what goes on. 
If anything, they have more diversity of opinion and thought 
than we do on issues of Israel I would say, and we need to 
understand that. And your job as Ambassador is to understand, 
you know, that maybe a third of the population of Israel, maybe 
40 percent--I do not know the number--but a significant number 
do not want new settlements in the West Bank either, but I 
think your job will be to report that to the President and to 
let him know the different viewpoints within Israel, what are 
the ramifications of new settlement even if we do not get a 
say.
    Now, the capital is a little bit different. Israel gets to 
decide the capital of their country, but as you and I 
discussed, I think while we have talked about moving it to 
Jerusalem, no one else has an Embassy there, right?
    Mr. Friedman. Correct.
    Senator Paul. There will be ramifications if we move it. 
What I want to know is are you a thoughtful individual? Will 
you think about the ramifications? Will we think to ourselves 
long and hard that if we do move our Embassy there and a 
thousand Israeli soldiers die because of it or somehow 
Americans are caught up in it, that will be--will it have been 
something that was worth our while if we do it for the 
symbolism of it if people die because of it? And will you think 
through the ramifications of that and advise the President that 
there is more than one side to the issue?
    Mr. Friedman. Yes, Senator. The decision obviously will be 
made by the President, and I am confident he will--and I would 
support him considering all of the political security and other 
ramifications associated.
    Senator Paul. I do not put myself out as an expert or 
someone who has an answer to Middle East peace. I wish I did. 
But having traveled there once, I have an opinion like everyone 
else. And my opinion basically is it is illusive, and I think I 
am fairly justified in that. But I would say that I came back 
from Israel thinking that our best hope is incremental change. 
And I think it is an equation where Israel does hold most of 
the cards and most of the power. They have an unparalleled 
military, and I do not think things are going to change 
militarily. That just--these are the facts on the ground.
    So I would say that there is chance for improvement, but it 
is going to be incremental. And one of the things--I met with 
Palestinian businessmen, some of the ones you referred to in 
general; I do not know if any specific--recently, and they 
mentioned to me Area C in West Bank. And when you look at the 
dots and which areas are controlled by people, Area C is like 
80 percent of the West Bank and they feel like they do not have 
access to it, that they are forbidden from, you know, drilling 
for water, drilling for minerals, trying to set up enterprises 
where they make more money.
    And my advice would be to meet with Palestinian 
businessmen, listen--and women, listen to them and say, gosh, 
if this is a way that we can lessen tension and hostility 
between the groups, why do we not see if there is a way that 
Palestinians can make more money, that trade can be enhanced.
    There is all kinds of things that are not the ultimate, you 
know, and final agreement, which is illusive, that we could do. 
And I want to know that you are open-minded to saying, you know 
what, we are less likely to have war the more we trade, the 
more we have interaction. Are you open-minded enough to hear 
the other side from the Palestinians on what we could do to 
enhance and lessen hostility?
    Mr. Friedman. Senator, I would be excited to have those 
discussions.
    Senator Paul. Okay. And I think some of that could be done 
here. I do not know. There is some of that here, you know, 
between the different parties. Some of that can be done over 
there. But I think it is important that you project to them 
that you are open-minded on these things because you have had--
and I am not--I have strong opinions, too, so I mean the thing 
is having strong opinions is not always a fault, but I would 
say that you have to show people that you are open-minded 
enough to be a diplomat, which means hearing from, talking to 
both parties, and understanding the complexity and the 
ramifications of every little policy that happens over there.
    Mr. Friedman. I will, Senator. Thank you.
    Senator Paul. Thank you.
    The Chairman. Thank you, sir.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Friedman, in our office we talked about a two-state 
solution. We talked about what may be possible. You said it was 
the gold standard. But in our conversation, and perhaps you 
could help me to kind of flesh this out a little bit further. 
You mentioned a scenario under which the West Bank could be 
incorporated into Israel and that the country would still 
maintain its Jewish and democratic identity. Could you go 
through that scenario and how you look at those numbers and how 
you would view that as an alternative?
    Mr. Friedman. Senator, I do not view it as an alternative. 
I think--at least to me the discussion was more in the 
hypothetical. But I think that the--I think there is a general 
conventional wisdom that Israel can either be Jewish or 
democratic but not both under that type of a scenario.
    I do not know the demographics of the West Bank well 
enough. There are multiple studies that have been done. I think 
demographics of the West Bank are a very important part of 
working forward. And I think we ought to all have the same data 
because the swings of population assumptions go from a million-
and-a-half Arabs to three million, and at a million-and-a-half 
Arabs it is one scenario; at three million it could be another. 
And I do not know which is true or if some number in the middle 
is true. I am not sure it matters. I was speaking really in the 
hypothetical. But because demographics matters to any future 
discussion, we ought to have good data, and I would certainly 
encourage the Israelis on a nonpartisan basis to try to get 
better data on those demographics.
    Senator Markey. But ultimately, do you think the 
Palestinians would accept a solution that had the West Bank 
incorporated into Israel, and then if the demographics were 
such that then they remained in the minority and that Gaza was 
excluded from a final agreement? Do you think there is a 
scenario under which the Palestinians could accept a deal that 
created that new entity and kept the Palestinians in a 
permanent minority in--within that greater Israel that would 
have been created?
    Mr. Friedman. I cannot imagine that either Israel or the 
Palestinians would accept a scenario where there were different 
rights for different citizens in terms of whether the 
Palestinians were in the majority or the minority. I could not 
speak for them. I would only point out that Israel itself has a 
very good track record of providing good education, health 
care, commercial opportunities, human rights, rights to the 
LGBTQ community, support of women's rights. I think Israel is 
very good to its Palestinian citizens, and so that might be a--
something that the Palestinians in the West Bank might be 
attracted to, but I would never speak for them.
    Senator Markey. So you do not personally support Israeli 
annexation of the West Bank?
    Mr. Friedman. No, I do not.
    Senator Markey. You do not? You are saying that that would 
have to be part of an agreement?
    Mr. Friedman. As the President said, all of this, all of 
this has to be agreed to by the parties or else it will not 
proceed.
    Senator Markey. Yes, because I--it is hard for me to 
envision a situation where the Palestinians would allow a 
division of the question where the West Bank was a part of the 
agreement, then Gaza in its resonance did not have rights that 
were vested with the citizens of that part of the Palestinian 
population.
    What are--if you could, you talked about the two-state 
solution as the best possibility of--can you give us another 
possibility in your mind that you think could unfold in terms 
of an agreement that could be reached between the Israelis and 
the Palestinians?
    Mr. Friedman. Sitting here today, I do not have a better 
option.
    Senator Markey. You do not have a better option?
    Mr. Friedman. No, I do not.
    Senator Markey. No. And I know that this terrain has 
already been traveled in the hearing, but if I could, I would 
like to go out and just talk a little bit about the Beit El 
settlement----
    Mr. Friedman. Yes, sir.
    Senator Markey [continuing]. And some of the comments from 
people who are out there. Beit El is training students, for 
example, to, quote, ``successfully delegitimize the notion of a 
two-state solution and creating facts on the ground in the face 
of the international community's desire to uproot us.'' Can you 
talk about comments like that coming out of the Beit El 
community in Ramallah and your views on those comments in terms 
of its implication for reaching a two-state solution?
    Mr. Friedman. I think they are a challenge among many to 
achieving a two-state solution. I should point out that my 
affiliation with Beit El is as the president of the American 
Friends of Beit El Yeshiva Center. We support a Talmudical 
Academy and a boys' high school and a girls' high school, and 
it primarily derives from my commitment to Jewish education. 
The quality of those schools are excellent, and everything that 
we have given money to has been in the nature of gymnasiums, 
dormitories, dining rooms, classrooms, things like that. So my 
philanthropic activity there has not been connected to their 
political activity, which I really had no part in.
    Senator Markey. If the land in Beit El was included in a 
two-state solution and that land had to be returned to the 
Palestinians, would you support the return of that land to the 
Palestinians?
    Mr. Friedman. In the context of a consensual fully-agreed-
to two-state solution?
    Senator Markey. That is correct.
    Mr. Friedman. Yes.
    Senator Markey. You would?
    Mr. Friedman. Yes.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I have some questions. I have refrained from asking until 
the end, but I know Senator Cardin has some questions. I will 
let him finish.
    Senator Cardin. If I could. And I--with no disrespect to 
the chairman, I have a commitment that--so after I ask these 
one or two questions I am going to thank Mr. Friedman for your 
patience and thank you very much again for your willingness to 
serve and for your passion for the relationship between Israel 
and the United States. It is--it comes across very clearly from 
your testimony and I just want to underscore that.
    The White House issued a statement on February 2 saying, 
``We do not believe the existence of settlements is an 
impediment to peace. The construction of new settlements or the 
expansion of the existing settlements beyond their current 
borders may not be helpful to achieving that goal.'' What is 
your view in regards to expansion of settlements or new 
settlements?
    Mr. Friedman. I think the expansion of settlements into new 
territories that are beyond borders--I agree with the 
President. They may not be helpful, and I think it makes sense 
to tread very carefully in that area.
    Senator Cardin. Thank you. And the last point I think I 
will--maybe I will ask this for the record. We have been 
talking a lot about the West Bank but very little about Gaza. 
Gaza is much more difficult than the West Bank. And I would--we 
had a chance in my office to talk a little bit about Gaza, but 
just let me put that on the record and I might ask you a couple 
questions for the record because it is a complicated situation 
on how you deal with Gaza if you do not have a viable two-state 
process moving forward.


    [The information referred to is located in the Additional 
Material Submitted for the Record section of this transcript, 
beginning on page 50.]


    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I saw the headline you had written about the two-state 
solution being somewhat of an illusion, and yesterday, I, with 
others, had a meeting with Prime Minister Netanyahu who we all 
respect greatly. And I listened to him say--I am not going to 
say what he said in a private meeting, but it was very much 
along the same lines that he constantly has said publicly, 
which in past comments has referred to the fact that until the 
Palestinians are willing to accept Israel's right to exist, it 
is very difficult to have a two-state solution.
    And then he refers, rightly so, to the fact that one of his 
great responsibilities is the security of the people of Israel, 
and there is not a time that you can see in the future ever 
where there is not military presence by the Israelis in the 
West Bank. And we keep talking about the West Bank because it 
is the place that is most likely for something good to happen, 
and Gaza obviously is way beyond that.
    I do wonder, especially after yesterday, but also seeing 
all of the many efforts that have been put in place around the 
two-state solution--I know Tony Blair--I do not know how many 
times he has been to the area. I think he told me once--I heard 
him speak--he had been there 160 times, and his wife made the 
joke, you know, Tony, it is not the number--it is not the 
amount of effort; it is the result. And of course there has 
been none.
    Are we helping the situation by continually talking about a 
two-state solution when having a military presence in the West 
Bank ad infinitum, forever by Israel is really something 
different than a two-state solution. It is a serious question, 
and I am beginning to wonder whether we are actually 
verbalizing this in the appropriate manner. It is not a gotcha 
question. It is an honest question. I know you have expressed 
very strong feelings. I sometimes think that we here in the 
public arena talk about things and keep holding something out 
regarding many conflicts around the world that maybe is not 
achievable based on the facts on the ground. And I am just 
wondering what your observation would be regarding that.
    Mr. Friedman. Well, Senator, Yitzhak Rabin, who is I think 
regarded universally as the architect of the two-state solution 
and who gave his life in pursuit of the two-state solution, he 
himself said that his vision was for--I think it was either--I 
think he used the term ``state-minus'' or something like that. 
I think the challenges here are Israel's security and the 
Palestinians' quality of life. I do not know if the Palestinian 
people at this juncture care more about the flag over their 
heads, who is leading them, as they care about reducing the 
unemployment rate down from an ungovernable level to a 
manageable level.
    I have heard Palestinians decry their leadership and they 
are no friends of Israel either. I suspect that the key to the 
region is economic empowerment, not political debates, and that 
is why I guess until I am proven wrong, which could be soon----
    The Chairman. What will----
    Mr. Friedman [continuing]. I would work to try to improve 
the economic levels.
    The Chairman. I absolutely think that is something that 
needs to occur. And in my last trip there in speaking with the 
Prime Minister in Ramallah, that certainly was the focus.
    I will say the flip side of that is when you know you have 
got settlements out here and you have got to have security 
around those settlements, it is very difficult to do commerce 
in between. I mean, it is--let us face it; it is more than 
burdensome. I am not criticizing. I am just observing that it 
is very difficult to do commerce when you are dealing with 
that.
    So, again, what would be a better way of describing the 
vision there? Because a state that has ad infinitum, forever 
sort of military--for realistic security measures has a 
military of another country in it, what would we call that? I 
mean, state-minus is not a particularly good description. But I 
think that we talk about this, we use rhetoric that I am 
beginning to believe is unrealistic rhetoric, and I do not know 
that it is useful in getting to a solution when you are 
describing something that to me is becoming more and more 
unrealistic for many, many reasons. I am not casting blame.
    Mr. Friedman. And I do not--Senator, candidly, I do not 
have a good answer to your question, and I certainly do not 
have a good word for--to articulate a vision. It is an enormous 
challenge. It is a very big Rubik's Cube that we all try to 
wrestle with every day. And I take the medical approach--even 
though I am not a doctor--to this which is let us not make it 
worse, let us do no harm, and then let us try to make it 
better. And I think that is the only advice I have right now.
    The Chairman. And I think your response on the settlements 
indicates that.
    Let me ask you this: Prime Minister Netanyahu has been very 
clear on this for many years. You know Israel well. Do you 
think the vision of military presence in the West Bank forever 
is the general view of the--sort of the mainstream of Knesset 
there?
    Mr. Friedman. I think the control of the Jordan Valley is 
something which people on the left and the right agree upon. I 
think that is the single most important feature of any 
Palestinian state. It does not mean that has to be military 
embedded within the communities or even the towns, but at the 
perimeter I do believe that on the left and the right there is 
unanimity that there must be control of the perimeter.
    The Chairman. It just seems to me that if that is the 
case--and I agree with you; I think that is the case--it just 
seems to me that we are at a point in time where we ought to be 
discussing the future, at least the future for the next 20 or 
30 years anyway, in a different way. And I do not know exactly 
how to describe that either, but it just seems to me that in 
addition to having a partner that is not a real partner on the 
Palestinian side, that there is a vision on the Israeli side 
that is not fully compatible with what we would normally 
describe as a two-state solution. Again, it is just an 
observation. And it seems to me that we would be better off as 
a world community to talk about it in terms that are different 
than we are talking about it right now.
    Mr. Friedman. Well, Senator, you heard the President 
yesterday use the term ``a larger canvas,'' and I have not had 
a chance to speak with him about that and flesh out those 
concepts, but I think certainly an open mind, a commitment to 
peace above all else to improve qualities of life is a step in 
the right direction.
    The Chairman. Listen, you have acquitted yourself well 
today. You have been here for many hours, as has your family. 
We thank you for your willingness to serve.
    There will be additional questions coming from folks, and 
we would like to keep the record open until the close of 
business Friday. My sense is you will want to answer those 
questions fairly promptly.
    And with that, without further questions or comments, the 
meeting is adjourned. Thank you.
    Mr. Friedman. Thank you.
    [Whereupon, at 1:17 p.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

       Responses to Additional Questions for the Record Submitted
            to David Friedman by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a student, I was actively involved in the Student 
Struggle for Soviet Jewry (``SSSJ'') a grass roots organization 
dedicated to publicizing the plight of Soviet Jews and advocating for 
their right to emigrate to Israel and the United States. Once my law 
practice began, my efforts to advance human rights and democracy were 
more philanthropic in nature, and extended to numerous organizations, 
including United Hatzala which I referred to in my testimony. I hope 
that my efforts have advanced the cause of these extremely important 
goals.
    Question 2. What are the most pressing human rights issues in 
Israel? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Israel? What do you 
hope to accomplish through these actions?

    Answer. The most significant human rights issues in Israel include 
terrorist attacks targeting civilians and politically and religiously 
motivated societal violence and discrimination.
    If confirmed, I would offer U.S. support in countering terrorism, 
strongly condemn terrorist attacks, and support Israel's right to 
defend its citizens. I would also urge the Government of Israel to take 
affirmative steps to protect shared values that are core to both our 
societies.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Israel in advancing 
human rights, civil society and democracy in general?

    Answer. Israel is a vibrant democracy that respects human rights 
and has a thriving civil society. However, when tensions rise between 
Israel and the Palestinians, it can lead to renewed violence against 
civilians and sometimes intolerance by both sides, posing a challenge 
to advancing these issues.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Israel? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I believe that a free and functioning civil society is an 
essential element of a healthy democracy and that governments must 
protect free expression and peaceful dissent and create an atmosphere 
where all voices can be heard. If confirmed, I will commit to meet with 
human rights, civil society, and other non-governmental organizations.
    I will pro-actively support the continued implementation of the 
Leahy Law and similar efforts to ensure that provisions of U.S. 
security assistance and security cooperation activities continue to 
reinforce human rights by working to ensure that the United States does 
not furnish assistance to any foreign security force unit if the 
Department of State has credible information that the receiving unit 
has committed a gross violation of human rights.

    Question 5. If confirmed, will you and your embassy team actively 
engage with Israel to address cases of key political prisoners or 
persons otherwise unjustly targeted by the Israeli Government?

    Answer. I believe all individuals should be treated humanely and 
have their human rights respected and upheld, including prisoners. If 
confirmed, I will actively engage with Israel to address cases, if any, 
of persons who have been unjustly targeted by the Israeli Government.

    Question 6. If confirmed, will you engage with Israel on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. I believe all individuals should be treated humanely and 
have their human rights respected and upheld. If confirmed, I will 
engage with Israel on matters of human rights, civil rights, and 
governance. I believe that the United States and Israel are more than 
just allies--our countries have a friendship based on our mutual 
appreciation and goals, on our common values of democracy and freedom, 
and on our conviction that giving a voice to minority and even 
dissenting views only strengthens our societies.


    Question 7. According to the World Bank, in 2016 the unemployment 
rate in the West Bank has reached 27 percent and in Gaza, unemployment 
is at 42 percent, with youth unemployment at 58 percent, among the 
highest in the world:

   What programs would you support to stimulate Palestinian job 
        growth?

    Answer. I support a focused approach to stimulating Palestinian job 
growth which includes programs that directly engage the private sector 
to boost productivity and works with the Government of Israel to find 
ways to address restrictions impacting the Palestinian economy. I 
understand ongoing USAID programs which have taken this approach have 
been effective in creating long term employment prospects for the 
Palestinians. As Ambassador, I would encourage USAID to look at ways to 
further scale these programs and create new ones, as well as look at 
interventions in areas such as education that address other obstacles 
to economic development.

    Question 8. What recommendations do you have for improving U.S. 
programs to address unemployment?

    Answer. Key enablers of Palestinian job growth include the easing 
of restrictions on movement and access which will allow Palestinians to 
increase trade and will increase Palestinians' access to land and raw 
materials. I support the Department of State's and USAID's ongoing 
efforts to engage the Government of Israel to find ways to ease such 
restrictions. Should I be confirmed, I will work with the Government of 
Israel to explore these and other options to enable Palestinian 
economic development.

    Question 9. hat specific recommendations do you have for addressing 
chronic unemployment in Gaza?

    Answer. The unemployment rate in Gaza--the highest recorded 
unemployment rate in the world--is both an economic and a security 
issue. To begin addressing it, Hamas needs to renounce terrorism and 
commit itself to working with the Palestinian Authority and others to 
better the quality of life of the people living in Gaza. I believe that 
we need to explore ways to reduce the restrictions on movement and 
access while respecting Israel's security needs and concerns. We should 
also be looking at ways to expand service delivery, particularly in 
Gaza, where lack of access to water and electricity has a hugely 
negative effect on economic growth and the population as a whole.

    Question 10. During your testimony, you stated that ``the two-state 
solution is the best possibility'' for lasting peace. You commented 
extensively on demographics and aspirations of Palestinians in the West 
Bank. A critical consideration that we did not have time to discuss is 
Gaza:

    As the two-state solution is still the best possibility for peace, 
what specific recommendations will you make to the President to address 
the crisis in Gaza and create conditions for peace?

    Answer. It is difficult for me to identify the ``specific'' 
recommendations that I would make to the President without first having 
access to certain classified information and more detailed discussions 
with the President, the Secretary of State and other State Department 
employees. Generally, in order to create conditions for peace, we must 
make it clear that peaceful negotiations, not terrorism, are the only 
possible path forward. If confirmed, I will work with the Government of 
Israel to find ways to empower all Palestinian moderates to be involved 
and ensure security coordination with the Palestinian Authority remains 
robust.
    As I also said during my confirmation hearing, part of moving 
towards peace includes finding ways to grow the Palestinian economy and 
especially the middle class, including in Gaza. This could include 
reducing restrictions on movement and access, as well as encouraging 
the Palestinian Authority to take up their responsibilities in Gaza.

    Question 11. Please explain your perspective on how Gaza may be 
treated differently from the West Bank in a negotiated settlement?

    Answer. I believe Gaza should be a part of any future negotiations. 
That said, Hamas is a violent terrorist organization that continues to 
reject the very basic principles needed for peace, including, among 
other things, recognition of Israel as a Jewish State, acceptance of 
previous agreements, and renunciation of violence. The Department of 
State designated Hamas as a Foreign Terrorist Organization in 1997. For 
any negotiated settlement involving Gaza to be successful, there will 
need to be a significant change in Gaza's leadership.

    Question 12. With respect to economic development in Gaza, what do 
you see as the main barriers in Gaza and how should the United States 
engage to address these barriers and improve conditions for economic 
growth?

    Answer. Hamas' illegal 2007 seizure of Gaza disrupted previous 
agreements on movement and access by displacing the Palestinian 
Authority. Subsequent restrictions on movement and access--put in place 
to address Israeli security concerns--are also a factor slowing 
economic growth in Gaza. As I previously stated, we need to do more to 
explore ways to reduce restrictions on movement and access that also 
respect Israeli security concerns. We should also work with the donor 
community, the Government of Israel, and the Palestinian Authority to 
find ways to increase electricity and water delivery in Gaza.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to David Friedman by Senator Jeanne Shaheen

    Question 1. Mr. Friedman, you've previously expressed your view of 
Israeli settlement construction as follows: ``As a general rule, we 
should expand a community in Judea and Samaria where the land is 
legally available and a residential or commercial need is present--just 
like in any other neighborhood anywhere in the world.'' You have also 
raised millions of dollars for a yeshiva located in the Israeli West 
Bank settlement of Bet El, which lies well outside the security 
barrier, not far from the Palestinian city of Ramallah.

   Do you think the construction of new Israeli settlements or the 
        expansion of existing settlements beyond the security barrier 
        impedes efforts to find a solution to the Israeli-Palestinian 
        conflict?
   Do you think that Israel should refrain from such construction? 
        Please explain your position.
   Do you support the ``Regularization Law'' that the Israeli Knesset 
        passed earlier this month that retroactively legalizes Israeli 
        settlements built on privately-owned Palestinian lands? What 
        impact would this law have on construction at the Bet El 
        settlement?

    Answer. I agree with the statement of the President that 
settlements are not an obstacle to peace, although new settlements and 
expansion of existing settlements beyond existing borders may not be 
helpful to the cause of peace.
    I believe that settlement issues should be addressed through direct 
negotiations between the parties in the same manner as other issues in 
the peace process.
    I am not an expert in Israeli law and thus not able to express an 
opinion on the ``regularization law.'' I do not know how the law would 
affect construction in Bet El.

Bet El Institutions Fundraising and Activity
    Question 2. If confirmed, will you commit to ceasing all 
fundraising for and personal contributions to the American Friends of 
the Bet El Yeshiva Center and any other settlement-related causes that 
you support?

    Answer. I so commit for as long as I am Ambassador to Israel.

Bet El Institutions Fundraising and Activity
    Question 3. The Israeli daily Haaretz recently reported that a 
building in the Bet El settlement that was funded by the American 
Friends of Bet El Yeshiva, the organization you head, and that 
prominently bears your name is built outside the Israeli-sanctioned 
boundaries of the settlement on privately-owned Palestinian 
agricultural land. According to the news report, the Friedman Faculty 
House at the Raaya Girls High School is situated in a neighborhood of 
Bet El that was partially demolished by order of the Israeli High Court 
of Justice five years ago because the land had been seized illegally. 
According to the Defense Ministry's Civil Administration, which 
supervises construction in the settlements, the demolition order is 
still on the books, although it has been ignored.

   Were you aware that the building bearing your name and which your 
        organization funded is located outside of the legally 
        sanctioned boundaries of the Bet El settlement?
   Would you support the demolition of this building if the Israeli 
        authorities decided to carry out the existing demolition order 
        due to its location?

    Answer. I was not aware and do not know the source or accuracy of 
the article. I would have no position since I do not believe that as an 
ambassador any statements should be made or would be appropriate.
Support for Israeli Political Candidates or Parties
    Question 4. Have you ever contributed to the campaigns of Israeli 
political leaders or political parties? If so, could you specify which 
leaders and which parties and how much you gave them?

    Answer. No.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to David Friedman by Senator Tom Udall

    Question 1. How much money have you raised and how much have you 
personally donated to organizations that support settlement expansion 
in the West Bank? Have you made any political donations to a candidate 
for Israeli office or an Israeli political party?

    Answer. Zero. I do not raise any funds from third parties. I have 
personally donated approximately $300,000 to American Friends of Bet El 
Yeshiva Center, a 501(c)3, over the past six years and lesser amounts 
to other charities in Israel. To my knowledge, all donations are used 
for religious and educational purposes and not for political purposes 
or settlement expansion.Additionally, I have made no political 
donations to a candidate for Israeli office or an Israeli political 
party.

    Question 2. Have you separated your financial interests from that 
of Bet El and any other Israeli settlements you may have an interest in 
and, if so, how have you done so?

    Answer. I have no financial interests in Bet El or any other 
Israeli settlement. If confirmed, consistent with my obligations to the 
Office of Government Ethics (OGE), I will resign my position at 
American Friends of Bet El Yeshiva Center and will not accept any 
position at that or any other Israeli institution for the duration of 
my ambassadorship.

    Question 3. Do you have any real estate or interests in any land in 
Israel or in the West Bank? If so, please list all interests in either 
region. Do you or your immediate family members own any property over 
the 1949 Armistice Line (aka the Green Line)?

    Answer. My wife and I own an apartment in Jerusalem. It is located 
within the Green Line. Additionally, neither I nor my immediate family 
members own property over the Green Line.

    Question 4. In your letter on Ethics Undertakings to the State 
Department's Office of the Legal Advisor, you committed to resigning 
your positions with a number of entities, including businesses and the 
American Friends of Bet El Yeshiva Center, but that you would ``not 
participate personally and substantially in any particular matter 
involving specific parties in which I know that entity is a party or 
represents a party'' for a period of one-year. Given your long-standing 
interests in this organization, will you extend your non-participation 
commitment to your full term in this office?

    Answer. I intend to fully comply with my ethical obligations as 
agreed to with OGE. If confirmed, I will not hold any position at this 
entity for the duration of my ambassadorship.Q02
    Question 5. During the hearing with now U.N. Ambassador Haley, we 
discussed that it has been the longstanding position since President 
Johnson that Israeli settlement activity in territories occupied in 
1967 undermines Israel's security, harms the viability of a negotiated 
two-state outcome, and erodes prospects for peace and stability in the 
region. Yet you have actively funded settlements in opposition to U.S. 
policy. How will you ensure that you represent U.S. policy rather than 
your personal views on the issue of settlements if you are confirmed as 
Ambassador?

    Answer. I have not funded any settlements in violation of U.S. 
policy. I will act strictly in accordance with the directives of the 
President and the Secretary of State without regard to any personal 
opinions which I may hold.

    Question 6. You wrote that Israel, using the term ``we'' QUOTE ``We 
should expand a community in Judea and Samaria [*Biblical names used in 
Israel for the West Bank] where land is legally available and a 
residential or commercial need is present--just like any other 
neighborhood in the world.'' UNQUOTE If you are confirmed as Ambassador 
will you continue to advocate for settlement growth which will continue 
to divide any potential future Palestinian state, publicly or in 
internal administration deliberations?

    Answer. Consistent with the stated position of the President, I 
will advocate for settlement issues to be resolved by direct 
negotiations between the parties.

    Question 7. You wrote that liberal Jews, QUOTE ``suffer a cognitive 
disconnect in identifying good and evil.'' UNQUOTE. This is 
disrespectful to many members of the Jewish community, including in my 
home state of New Mexico. Do you now disavow and apologize for this 
statement?

    Answer. Yes.

    Question 8. If confirmed, you will in essence join the State 
Department and will lead State Department employees at our Embassy in 
Israel. You have said the State Department has a ``Hundred year history 
of anti-Semitism.'' This disparages and calls into question the 
character of many American patriots who have served in the State 
Department. Who have actively worked to promote the interests of the 
United States. Do you now disavow and apologize for this statement?

    Answer. The State Department has led the world in advancing the 
cause of peace and acting with moral clarity. There have been, 
unfortunately, isolated occurrences of anti-Semitic behavior over the 
history of this organization (see, E.G. letter of Henry Morgenthau to 
President Roosevelt of January 16, 1944). I have great confidence and 
respect for the current State Department.

    Question 9. Do you support the MOU signed between the United States 
and Israel and will you work to ensure that the terms of the MOU are 
carried out?

    Answer. Yes, I support the MOU and, if confirmed, would confer with 
the President, the Secretary of State, the Congress and the Israelis to 
ensure as robust a support for Israel's security as possible. The ten-
year MOU provides predictability past FY 2018, which is critical to 
Israel being able to finance and procure critical weapons systems such 
as the F-35.
    It is my understanding that Foreign Military Financing helps to 
support Israel's continued defense modernization; provides for the 
acquisition of U.S.-origin defense equipment and training; and is 
conditioned on having appropriate export control and technology 
security safeguards in place to prevent transfers of controlled 
technology or know-how to potential adversaries and unauthorized 
recipients. It also strengthens interoperability and the capability of 
Israel to participate in coalition operations and exercises.
    U.S. assistance helps ensure that Israel maintains a qualitative 
military edge over potential regional threats, preventing a shift in 
the security balance of the region and safeguarding U.S. interests.

    Question 10. In a piece your wrote in August of 2015 you advocated 
in favor of Israeli bombing of populations centers using ``entirely 
disproportionate force'' in a fictional letter, stating in response to 
the approval of the JCPOA that:

          Rather, we are respectfully informing the leadership of the 
        United States, our greatest friend, as well as all of our 
        enemies, that any further attacks on Israel, whether by rocket, 
        by tunnel, by incursion or otherwise, will be met with entirely 
        disproportionate force--the type of force every other nation 
        has used and will use under comparable circumstances--designed 
        to immediately end the battle and discourage and deter further 
        misconduct. You have left us with no other choice.
          Winston Churchill is considered by many to be the greatest 
        leader of his generation. To defeat the Nazis, Churchill, in 
        coordination with American forces, bombed population centers in 
        Dresden, Germany and elsewhere in early 1945. Civilian life was 
        lost but the war quickly ended, Nazism was defeated and 
        Churchill was regaled as a hero. No one holds life to be more 
        precious than the People of Israel and we will never target 
        civilians. But we will no longer permit human shields to limit 
        our self-defense and we will send a clear message to deter the 
        terrorist attacks that we know are coming. We will not be held 
        to a different standard than the United States, we will not bow 
        to the world's hypocrisy and we will defeat Islamic terrorism 
        by any and all means necessary.
          I hope this clarifies our position in response to the JCPOA's 
        approval.

    Do you still support such violations of basic human rights and 
warfare? Do you agree that the targeting of civilian populations is 
illegal and a U.S. Ambassador should not encourage such behavior? Do 
you have an explanation for why you advocated for Prime Minister 
Netanyahu to target civilian populations?

    Answer. First, as stated above, this is a ``fictional'' letter and 
does not advocate anything to the Prime Minister of Israel. Second, 
civilian populations should never be used as shields or targeted in a 
war. Launching rocket attacks from civilian populations is reckless and 
inhumane. Israel must be able to defend its citizens and should do so 
in a manner which minimizes collateral damage to civilians. Everyone 
should condemn anyone who fires rockets from within civilian populated 
areas.

    Question 11. You wrote about a proposed compromise where the United 
States would ban ``assault rifles'' in exchange for a variation on a 
Muslim ban. For the record you wrote:

          So let's talk about banning all assault rifles and putting in 
        some hard penalties. How about a mandatory ten years in prison 
        for possession? This will take these weapons off the street in 
        no time and perhaps give law enforcement the ability to 
        apprehend terrorists before they can do any damage.
          Now, in exchange for this ban, let's also make sure that law 
        enforcement is given the resources to ban all Muslims whose 
        words or deeds present the slightest risk of terrorist 
        activity. There's no need to worry about the First Amendment--
        the rights of free speech and privacy do not apply to 
        immigrants applying for entry to the United States.

    In two paragraphs you made recommendations that would limit both 
the First and Second Amendments to the Constitution. Do you still 
support a ban on assault style rifles in exchange for a modified Muslim 
ban where Muslim First Amendment rights would no longer be protected?

    Answer. No.

    Question 12. In your hearing, you expressed ``regret,'' ``deep 
regret'' and--in some cases--apologized about some of the offensive 
comments you made against individuals and groups with whom you 
disagree. However, you did not apologize for some of these offensive 
comments in the hearing.

   Will you specifically apologize for your comments regarding 
        President Obama?
   Will you specifically apologize for your comments regarding J 
        Street?
   Will you specifically apologize for your comments regarding the 
        Anti-Defamation League?

    Answer. I do not believe, and did not say, that President Obama is 
an anti-Semite. I do believe that certain comments he made were anti-
Semitic, although I assume this was unintentional. If anyone believes 
that I called President Obama an anti-Semite, I apologize.
    I have already apologized to members of J Street for my hurtful 
language.
    Further, I have apologized to Jonathan Greenblatt who has publicly 
accepted my apology and stated that his organization, Anti-Defamation 
League, looks forward to working with me.

    Question 13. Do you commit to meeting--to the extent you schedule 
permits--with delegations organized by or comprised of pro-Israel 
advocates that you have criticized or with whom you may disagree, 
including J Street?

    Answer. Schedule permitting, I would like to meet with various and 
diverse groups to hear and understand their views.

    Question 14. The Rosh Yeshiva of Bet El, which you have financially 
supported, has written a book in which he instructed Israeli soldiers 
to ``disobey orders to evacuate Jewish settlements in Israel.'' This 
book was subsequently banned by the Israeli military.

   Do you agree with this statement--that it is forbidden to uproot 
        Jews from any part of Greater Israel?
   Would you support insubordination if members of the Israeli Defense 
        Forces were ordered to dismantle an outpost that was deemed 
        illegal by Israeli law?
   Would you support settler violence against Israeli soldiers in 
        order to prevent the dismantlement of an outpost that was 
        deemed illegal by Israeli law?
   If you do not support the political statements of the leaders of 
        Bet El, particularly the head of its Yeshiva, which you have 
        supported, why did you choose Bet El to support, out of all of 
        the causes in Israel?

    Answer. As stated above, I have personally contributed to the 
American Friends of Bet El Yeshiva Center, a 501 (c) 3 that supports 
education. I am unfamiliar with this book and do not agree with this 
statement.
    I do not support insubordination if members of the Israeli Defense 
Forces were ordered to dismantle an outpost that was deemed illegal by 
Israeli law
    I do not support settler violence against Israeli soldiers in order 
to prevent the dismantlement of an outpost that was deemed illegal by 
Israeli law?
    As stated above, I am unfamiliar with this book or the statements. 
I support Jewish education and Bet El has excellent schools. Bet El is 
situated on a site that has biblical and historical significance, being 
mentioned multiple times in the Old Testament.

    Question 15. It has been reported that a settlement building that 
was funded by the organization you head and which prominently bears 
your name is built outside the Israeli-sanctioned boundaries of the 
settlement on privately-owned Palestinian agricultural land. What is 
the legal status of this building?

    Answer. I am not an expert in Israeli law and cannot opine on the 
legal status.

    Question 16. Given 50 years of US bipartisan opposition to 
settlement activity, it has been our country's practice for decades 
that US Ambassadors to Israel do not visit the settlements. Given your 
considerable support and enabling of the settlement enterprise, do you 
plan to break with this longstanding, bipartisan tradition and visit 
the settlements if you become Ambassador?

    Answer. I will observe the practices directed of me by the 
President and the Secretary of State.

    Question 17. In response to Sen. Booker's question regarding 
whether you would go up to the Temple Mount as Ambassador, you replied 
that you have never been to the site. Will you commit to not going up 
the Temple Mount as Ambassador if you are confirmed?

    Answer. I have no intention to visit the Temple Mount, and will 
observe such practices directed of me by the President and the 
Secretary of State.

    Question 18. You stated there was ``No need to worry about the 
First Amendment'' when you defended your proposal to screen Muslims 
entering this country. It is also notable, that similar proposals 
resulting in increased scrutiny on Muslim Americans have emerged in 
Israel.
    There are concerns that Israel treats Arab Americans at the Israeli 
border differently than other Americans, despite their American 
passports. Reportedly, Arab Americans have routinely been detained, 
interrogated in intrusive manners for hours, and in some cases denied 
entry to Israel and deported for no apparent reason other than they are 
of Arab heritage.
    If confirmed as Ambassador will you work to ensure that all 
Americans are treated equally by Israel, and that all American 
passports are honored?

    Answer. Yes.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to David Friedman by Senator Christopher Murphy

    Question 1. The U.S. Ambassador to Israel often meets with 
delegations of pro-Israel Senators, Members of Congress and pro-Israel 
advocates that travel to Israel, sometimes on missions organized by 
groups that you have criticized or with whom you may disagree. Do you 
commit to meeting--to the extent you schedule permits--with delegations 
organized by or comprised of pro-Israel advocates that you have 
criticized or with whom you may disagree, including J Street?

    Answer. I value the work of civil society; I also value the freedom 
of expression, even in cases where I do not agree with the political 
views espoused. I recognize that giving voice to minority and even 
dissenting views only strengthens our societies and that a free and 
functioning civil society in which all peaceful voices are allowed to 
be heard is an essential element of a healthy democracy. Schedule 
permitting, I would like to meet with various and diverse groups to 
hear and understand their views.

    Question 2. In your letter on Ethics Undertakings to the State 
Department's Office of the Legal Advisor, you committed to resigning 
your positions with a number of entities, including businesses and the 
American Friends of Bet El Yeshiva Center, but that you would ``not 
participate personally and substantially in any particular matter 
involving specific parties in which I know that entity is a party or 
represents a party'' for a period of only on year. Why did you limit 
this non-participation commitment to only one year?

    Answer. The language stated above is the standard language mandated 
by the Office of Government Ethics (OGE). I intend to fully comply with 
my ethical obligations as agreed to by OGE. If confirmed, I will not 
hold any position at this entity for the duration of my Ambassadorship.

    Question 3. Given 50 years of U.S. bipartisan opposition to 
settlement activity, it has been our country's practice for decades 
that U.S, Ambassadors to Israel do not set foot inside the settlements. 
Given your considerable support and enabling of the settlement 
enterprise, do you plan to break with this longstanding, bipartisan 
tradition and visit the settlements if you become ambassador?

    Answer. I will govern myself strictly in accordance with the 
practices imposed by the President and the Secretary of State.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to David Friedman by Senator Tim Kaine

    Question 1. Do you believe it would be helpful for Prime Minister 
Netanyahu to express a willingness to engage with Arab Governments on 
the Arab Peace Initiative? If confirmed, is this an approach that you 
would encourage the Israeli Government to pursue?

    Answer. As President Trump made clear, it is very important to him 
personally to work towards achieving peace throughout the Middle East 
region, including a comprehensive agreement that would end the Israeli-
Palestinian conflict. On matters of policy, I will take direction from 
the President and the Secretary of State.

    Question 2. Do you think it will be more challenging to explore the 
opportunities between Israel and the Arab world if Israel continues on 
its current path of settlement expansion and demolition of Palestinian 
structures and homes in Jerusalem and the West Bank?

    Answer. President Trump is committed to achieving peace throughout 
the Middle East, including an agreement between the Israelis and 
Palestinians, and has stated that existing settlements are not an 
impediment to peace.  I have not been in contact with the leaders in 
the Arab world and would not want to speculate on their views of 
settlement expansion and demolition of Palestinian structures, 
especially in isolation. As stated above, I will take direction from 
the President and the Secretary of State.

    Question 3. Would a hasty decision to move the U.S. embassy to 
Jerusalem help or harm Israel's relationships with Jordan and Egypt, 
and Israel's ability to make progress in a broader approach with the 
Arab world?

    Answer. A hasty decision would not be advisable.

    Question 4. Do you believe the United States should encourage 
Israel to restrict or limit settlement activity? And if so, what 
specific restrictions would you advocate for as ambassador?

    Answer. I believe, as the President has said, that settlement 
expansion beyond existing borders, as well as new settlements, may not 
be helpful to the cause of peace. I could not advise on any specific 
restrictions in isolation without a full appreciation of the parties' 
positions on all relevant issues and detailed discussions with the 
President and the Secretary of State.

    Question 5. Do you plan to be involved in activities and 
fundraising for the Bet El settlement while serving as U.S, Ambassador?

    Answer. I intend to resign from my position as President of the 
American Friends of Bet El Yeshiva Center, a 501(c) 3, if I am 
confirmed by the Senate, and I do not intend to resume that position, 
or any other position at this entity, for so long as I am Ambassador to 
the State of Israel.
    Question 6. Do you agree that people-to-people programs can play a 
valuable role in promoting mutual respect and helping to create an 
environment more conducive to achieving peace?

    Answer. Yes.

    Question 7. If confirmed as U.S. Ambassador, will you use your role 
to help champion people-to-people programs and encourage engagement 
across Israeli and Palestinian societies?

    Answer. Yes, subject to the direction of the State Department.



                               __________

 Letters Submitted in Support of and in Opposition to David Friedman's 
                 Nomination to be Ambassador to Israel
                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





 Source Material for Controversial Statements Attributed to Ambassador-
                        Designate David Friedman


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              




                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:32 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
presiding.
    Present: Senators Flake [presiding], Barrasso, and Booker.

             OPENING STATEMENT OF HON. JEFF FLAKE,
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today, the committee will consider the nominations of two 
experienced career Foreign Service Officers to be the U.S. 
Ambassadors to the Republic of the Congo, and Senegal and 
Guinea Bissau, respectively. I was pleased to meet with each of 
today's nominees in my office several weeks ago and to learn 
more about them and about their potential postings.
    Thank you for coming by.
    Senegal remains stable in a region often plagued with 
instability around, but it is one of the few countries in 
Africa to have never experienced a coup d'etat. We cooperated 
well with Senegal on counterterrorism and with other issues.
    Our relationship with Guinea-Bissau has been strained on 
account of a near-constant stream of political crises, and the 
previous administration took some steps to try to make that 
relationship more positive.
    The Republic of the Congo continues to present challenges 
for the United States with trade and investment ties. Trade and 
investment ties with Congo center on the country's energy 
resources, and for the region in which it is all too common for 
heads of state to try to alter or bypass congressional term 
limits so they can just hang on to power.
    I thank both of you for your time and for sharing your 
expertise with us. I want to pass along our thanks to your 
family members. I am sure you will make some introductions. We 
appreciate the sacrifices that they make, and for all the good 
work that you do.
    With that, I will recognize Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I appreciate that. I want to echo my 
chairman's words today. This is a tremendous moment to be able 
to sit here with the two of you, who have a very long, esteemed 
careers in the State Department and Foreign Service.
    I have been in the Senate for a short time, a few years, 
and have been on this committee for short weeks, but I am very 
familiar with the important role you play for our country. I 
just want to thank you both for the service that you have 
rendered.
    I want to say it clear, and I know that I speak for all the 
Senators on this dais, that your work, your safety, and your 
success is a priority for me and for us.
    The countries to which you have been nominated to serve in 
have very important U.S. policy interests. Frankly, I think 
they have interests that are important to all of humanity.
    Senegal was discussed by the chairman. They have their 
stability. They are a strong civil society with a relatively 
free press. It is a beacon of hope for Muslim-majority 
countries.
    And for Guinea-Bissau and the Republic of the Congo, they 
continue to have grave concerns, concerns of poor governance, 
political conflict, and humanitarian challenges. I really do 
believe that all of us as Americans should be deeply concerned 
about the success of the people of those countries, and our 
role in that is critical.
    It is a testimony to the two of you, this is something that 
is really exciting to me that we have President Obama and 
President Trump showing their accord. This is the vast 
territory on which they obviously agree on things. And that is 
really a testimony to the qualifications of the two individuals 
that sit before us.
    So thank you very much. I look forward to your testimony. 
And I do want to say, as I said to you in the backroom, we are 
very, unfortunately, crunched for time, having to go see the 
President in regard to North Korea.
    So we look forward to having a good hearing, cogent 
hearing, even if it is relatively brief compared to others.
    Senator Flake. Thank you, Senator Booker.
    Our first nominee Tulinabo Mushingi, a career member of the 
Senior Foreign Service who currently serves as U.S. Ambassador 
to Burkina Faso, a position he has held since 2013. This is the 
second time I have had the pleasure of being present for one of 
his confirmation hearings.
    Mr. Ambassador, welcome back.
    Our second nominee is Todd Haskell, who serves as Deputy 
Assistant Secretary in the Bureau of African Affairs. Prior to 
that, he was the Africa Bureau's director of public diplomacy 
and public affairs. Mr. Haskell joined the Foreign Service in 
1985 and served in the Dominican Republic, South Africa, 
Burkina Faso, Pakistan, Philippines, Poland, Israel, Egypt, and 
Mexico. I am trying to figure some nexus in all of that, but I 
have failed.
    Senator Booker. They are all on planet Earth.
    Senator Flake. They are.
    So we have before us two very experienced diplomats. We 
appreciate you being here.
    And, Mr. Mushingi, you may begin.

   STATEMENT OF HON. TULINABO SALAMA MUSHINGI OF VIRGINIA, A 
     CAREER MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF 
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
OF THE UNITED STATES OF AMERICA TO THE REPUBLIC OF SENEGAL, AND 
 TO SERVE CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
       STATES OF AMERICA TO THE REPUBLIC OF GUINEA-BISSAU

    Ambassador Mushingi. Mr. Chairman, Ranking Member, 
distinguished members of the committee, I am honored to appear 
before you once again as President Trump's nominee for United 
States Ambassador to the Republic of Senegal and the Republic 
of Guinea-Bissau. I very much appreciate the confidence and 
trust that the President and Secretary of State have shown in 
nominating me for this position. I am equally grateful to 
receive this distinguished committee's consideration.
    Allow me to thank my wife of 35 years, Rebecca, and our 
daughter, who have supported me through my career.
    My work and travels across Africa, including as Ambassador 
to Burkina Faso, have provided me with the experience needed to 
foster strong ties between the United States, Senegal, and 
Guinea-Bissau.
    Senegal is one of our most reliable partners in Africa in 
our efforts to boost economic growth, promote good governance, 
fight terrorism, as well as counter the drivers of terrorism. 
For example, to strengthen our defense capabilities, in 2016, 
our two countries signed a defense cooperation agreement that 
gives the United States the ability to respond quickly to 
emergency situations in the region. Senegal also hosts one of 
the largest Peace Corps programs in Africa.
    Turning now to Guinea-Bissau, its longstanding political 
impasse and weak governance not only threaten the country's own 
development, they also set a dangerous example for the region. 
If confirmed, I will strengthen our efforts to promote economic 
development, step up civilian governance to increase democracy, 
and counter drug trafficking in the Gulf of Guinea.
    Mr. Chairman, I have been fortunate to work in public 
service, in particular on African issues, for over 27 years. If 
confirmed, I will work hard with our U.S. mission teams to 
advance U.S. national security interests, to reflect American 
values, to protect American citizens and interests, and to 
maximize the effectiveness of our cooperation in Senegal and 
Guinea-Bissau.
    Thank you very much for inviting me today. I will be 
pleased to answer any questions you may have.
    [Ambassador Mushingi's prepared statement follows:]


                Prepared Statement of Tulinabo Mushingi

    Mr. Chairman, Ranking Member Cardin, and distinguished members of 
the committee, I am honored to appear before you today as President 
Trump's nominee to serve as the next Ambassador to the Republic of 
Senegal and the Republic of Guinea-Bissau. I appreciate the confidence 
and trust the President and Secretary of State have shown in nominating 
me for this position. I am equally grateful to receive the 
distinguished committee's consideration.
    Today, it is my privilege to present my wife, Rebecca, who 
honorably served our country working for the U.S. Peace Corps, and my 
daughter, Furaha. Both have supported me throughout my career in the 
Foreign Service.
    My work and travels across Africa, including as Ambassador to 
Burkina Faso, have provided me with the experience needed to foster 
strong ties between the United States and Senegal and Guinea-Bissau. If 
confirmed, I look forward to working closely with the Members of this 
committee and their staffs to promote and protect U.S. interests in 
both countries.
    Allow me to first turn to our relations with Senegal, where a 
shared commitment to democratic values, security, and economic growth 
forms the bedrock of our partnership. Senegal's success in these areas 
sets a strong example for the region, advancing our core interests of 
reducing regional threats and promoting greater trade.
    Through their democratic traditions, the people of Senegal have 
shown over and over again that they can and will hold their leaders to 
account by casting votes in democratically-held elections and 
exercising their right to free speech. Senegal's leaders have also 
shown that they respect the democratic rights and will of the people.
    The United States supports the Government of Senegal's efforts to 
resolve the 34-year, low-intensity, separatist conflict in the southern 
Casamance region. A de facto cease fire has been in place there since 
2013, I believe due in no small part to the success of our economic 
development and diplomatic efforts. This regular and sustained 
engagement with all parties to the conflict, has contributed to real 
change on the ground and the possibility of a lasting peace. If 
confirmed, I will make sure our effort to support the Casamance peace 
process remains a priority.
    Senegal stands as one of our most reliable partners in Africa in 
the effort to promote good governance, fight terrorism, and counter the 
drivers of terrorism. Senegal is a member Global Peace Operations 
Initiative (GPOI) and of the Trans-Sahara Counterterrorism Partnership 
(TSCTP) programs and is a leading voice for using regional approaches 
to CT challenges. Senegal consistently ranks among the top ten troop 
and police contributors to UN peacekeeping missions. To truly 
understand Senegal's importance, one need, look no further than the 
instrumental role Senegal played in helping ensure the peaceful 
transition to power of a democratically elected president after 22 
years of dictatorship in The Gambia, and the role it continues to play 
in supporting the Economic Community of West African States Military 
Intervention in The Gambia (ECOMIG).
    In 2016, Senegal and the United States signed a defense cooperation 
agreement. This agreement gives us the ability to respond quickly to 
emergency situations in the region, while also supporting Senegal's 
capacity to fight terrorism. If confirmed, I will work with Senegal to 
continue to strengthen our common effort to fight terrorism in West 
Africa and beyond.
    Senegal aims to be an attractive destination for investment--by its 
own citizens and by foreign investors. American entrepreneurs are 
finding new opportunities to do business in Senegal, and U.S. 
development assistance has already made critical contributions to the 
infrastructure the country must have for sustained economic growth.
    In September 2015, Senegal completed a $540 million MCC Compact 
focused on developing transportation and irrigation infrastructure in 
northern and southern Senegal, dramatically improving agricultural 
productivity and market access for farmers. In December 2015, the MCC 
Board selected Senegal as a candidate for development of a second five-
year compact. The Government of Senegal is working closely with MCC to 
identify ways to alleviate the high cost of energy.
    Lastly, our people-to-people relations have never been stronger 
thanks to robust public diplomacy exchanges and over 275 American Peace 
Corps volunteers placed in communities across Senegal, working on 
projects in agriculture, agroforestry, health, and community economic 
development. If confirmed, I will work to deepen the bilateral 
partnership through programs like these, which are aimed at helping 
Senegal become an even stronger partner for the United States.
    Turning now to Guinea-Bissau, our efforts remain focused on 
promoting stable civilian governance to increase democracy, economic 
development, and counter drug trafficking in the Gulf of Guinea Guinea-
Bissau has seen five different governments in the last 15 months. This 
reflects deep divisions, driven in large part by personal grievances, 
which have hindered efforts by the United Nations and ECOWAS to bring 
about a resolution to Guinea-Bissau's long-standing political impasse.
    Instability and weak governance not only threaten the country's own 
development; they set a dangerous example in a region where trans-
national crime already thrives on porous, undefended borders and 
unpatrolled seas. Democracy and rule of law will flourish only if the 
President, the Government of Guinea-Bissau, the National Assembly, and 
leaders of the main political forces work together to establish an 
inclusive, responsive, and an accountable government that serves all 
citizens.
    In FY 2016, Guinea-Bissau received limited assistance in 
International Military Education and Training to support the 
professionalization of its military forces and more constructive and 
stable civil-military relations. The country also received aid to 
promote Rule of Law and support counter-narcotics projects. If 
confirmed, I will work with international organizations, such as the 
United Nations Integrated Peacebuilding Office in Guinea-Bissau, and 
regional bodies such as ECOWAS and the Community of Portuguese-Speaking 
Countries, to support security and constitutional rule and to bolster 
economic growth.
    Mr. Chairman, I have been fortunate to work in public service and 
particularly on African issues for many years. I am very familiar with 
the culture and peoples of West Africa and U.S. interests in the 
region. If confirmed, I look forward to working with our truly 
extraordinary U.S. Mission team in Senegal and Guinea-Bissau, and, as 
Chief of Mission, working to ensure the safety, security, and of all 
U.S. citizens as we work together to advance U.S. interests in Senegal 
and Guinea-Bissau.
    Thank you for inviting me to appear before you today. I would be 
pleased to answer any questions you may have.


    Senator Flake. Thank you, Mr. Mushingi.
    Ambassador Haskell?

STATEMENT OF TODD PHILIP HASKELL OF FLORIDA, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF THE CONGO

    Mr. Haskell. If confirmed. [Laughter.]
    Mr. Chairman and members of the committee, it is an honor 
to appear before you today as the President's nominee to be the 
U.S. Ambassador to the Republic of the Congo. If confirmed, I 
will work closely with this committee and with interested 
Members of Congress to advance U.S. interests and U.S. values 
in the Congo, and to help all Congolese achieve the bright 
future they deserve.
    Accompanying me here today is my wife, Jennifer, who has 
traveled to be with us all the way from South Africa, where she 
serves as the management counselor at our Embassy in Pretoria, 
and two of my children, Michael and Jonah, who have come from 
Texas and New York, respectively. My third son is actually 
currently teaching English in China and cannot be with us.
    Senator Flake. Raise your hand, will you?
    Good. Thank you.
    Mr. Haskell. The Republic of the Congo, with a population 
of about 4.5 million people, sits in a strategically important 
position on the oil-rich Gulf of Guinea. It is the fourth 
largest oil producer in sub-Saharan Africa. Approximately 500 
U.S. citizens live in the Republic of the Congo, and U.S. 
businesses are active in the petroleum sector and other 
industries.
    President Denis Sassou N'Guesso has played a valuable role 
as a mediator in regional crises. Under his leadership, Congo 
has deployed peacekeepers to the Central African Republic for 
more than a decade now, and is hosting approximately 35,000 
refugees from that country.
    Congolese troops deploying to the Central African Republic 
receive U.S. Government-sponsored training, and the Congo 
military also participates in the international military 
education and training program.
    U.S. policy seeks to promote the development of democratic 
institutions and the long-term stability of Congo.
    President Sassou has been in power for 33 of the last 38 
years. He overcame constitutional term limits through a 
referendum in October 2015, and he was reelected President in 
March 2016. Our public statements at that time criticized the 
flawed electoral process and the arrests of opposition leaders 
following the vote, while praising the people of Congo for 
their active participation in the election.
    If confirmed, I will continue to emphasize the need for 
good governance and effective institutions that serve the 
citizens of Congo.
    The United States is one of many countries addressing a 
broad range of health issues in Congo, such as poor child 
nutrition, HIV, malaria, and tuberculosis. And U.S. assistance 
in the health sector also focuses on identifying emerging 
infectious diseases such as Ebola.
    Embassy Brazzaville coordinates with several U.S. 
Government agencies to assist Congo on natural resources 
management and the protection of Congo's flora and fauna, 
including lowland gorillas and forest elephants.
    Mr. Chairman, if confirmed, I will bring the collective 
experience of my 32 or so years in the Foreign Service to 
advance U.S. interests, to ensure the safety and welfare of all 
Americans and U.S. Government employees, and to strengthen 
bilateral relations with and promote the long-term stability of 
the Republic of the Congo.
    I am looking forward to working with this committee in 
furtherance of these goals, and I am happy to answer any 
questions that you might have.
    Thank you.
    [Mr. Haskell's prepared statement follows:]


                 Prepared Statement of Todd P. Haskell

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Trump's nominee to be the U.S. Ambassador 
to the Republic of Congo (ROC). If confirmed, I will work closely with 
this committee and other interested Members of Congress to advance U.S. 
interests and values in the Congo, and to help all Congolese achieve 
the bright future they deserve.
    Accompanying me here today is my wife Jennifer, who has traveled to 
be with us today from South Africa where she serves as Management 
Counselor at our Embassy in Pretoria, and two of my three children, 
Michael and Jonah, who have come from Texas and New York respectively. 
My third son Seth is currently teaching English in Chengdu China.
    The Republic of Congo, with a population of about 4.5 million 
people, sits in a strategically important position on the oil-rich Gulf 
of Guinea. It is the fourth largest oil producer in sub-Saharan Africa. 
Approximately 500 U.S. citizens live in the Republic of Congo, and U.S. 
businesses are active in the petroleum business and other industries.
    President Denis Sassou N'Guesso has played a valuable role as 
mediator in regional crises. Under his leadership, Congo has sent 
peacekeepers to the Central African Republic for more than a decade 
now, and is hosting approximately 35,000 refugees from that country. 
Congolese troops deploying to the Central African Republic receive U.S. 
Government-sponsored training, and the Congo military also participates 
in the International Military Education and Training program.
    U.S. policy seeks to promote the development of democratic 
institutions and the long-term stability of the Congo. President Sassou 
has been in power for 33 of the last 38 years. He overcame 
constitutional term limits through a referendum in October 2015, and 
was reelected president in March 2016. Our public statements criticized 
the flawed electoral process and the arrests of opposition leaders 
following the vote, while praising the people of Congo for their active 
participation in the election. If confirmed, I will continue to 
emphasize the need for good governance and effective institutions that 
serve the citizens of Congo.
    The United States is one of many countries addressing a broad range 
of health issues in ROC, such as poor child nutrition, HIV, malaria, 
and tuberculosis. U.S. assistance in the health sector also focuses on 
identifying emerging infectious diseases such as Ebola. Embassy 
Brazzaville also coordinates with several U.S. Government agencies to 
assist the Congo on natural resource management and the protection of 
the Congo's forest and fauna, including lowland gorillas and forest 
elephants.
    Mr. Chairman, if confirmed, I will bring the collective experiences 
of my 31years in the Foreign Service to advance U.S. interests, to 
ensure the safety and welfare of all Americans and U.S. Government 
employees, and to strengthen bilateral relations with and promote long-
term stability in the Republic of Congo. I look forward to working with 
the committee in furtherance of these goals, and I am happy to answer 
any questions you might have.


    Senator Flake. Thank you.
    Thank you both.
    Mr. Mushingi, with regard to Senegal, when we spoke in our 
office, we talked about U.S. business opportunities there. What 
can we do more to encourage U.S. businesses to locate and 
employ those in Senegal?
    Ambassador Mushingi. Thank you, Senator, for that question. 
In fact, economic growth and economic development is one of our 
priorities in Senegal. If confirmed, of course, I will continue 
in that same vein.
    For Senegal, as we discussed, we are happy to see the 
interest by American businesses, American companies that are 
now, that have been for a while, and continue to be interested 
in Senegal.
    And Senegal has proven to be a welcoming nation. In fact, 
the hospitality they are known for called teranga is obvious 
when these companies start knocking on the door.
    The list of companies currently in Senegal is actually 
impressive, more than 20, the last time I checked, including 
companies like Citibank. The latest, which is the NBA, it just 
started an academy in Senegal for the whole continent of 
Africa. We have Kosmos that is interested in oil and gas.
    So now we have really an opportunity to increase this range 
of companies interested in Senegal, and we will work hard to 
continue advocating for American companies that are interested 
to come to Senegal.
    Senator Flake. There has been a rift lately between Senegal 
and Israel. I have sponsorship of the resolution with regard to 
settlement activity, and it has caused Israel to actually take 
some measures with regard to economic aid that was promised. 
That might also affect our relationship.
    What do you see as your role there?
    Ambassador Mushingi. If confirmed, my role, Senator, will 
be to continue the dialogue that my predecessors have had with 
the Government of Senegal about our values and about our 
relations with all our friends, including Israel.
    One thing, if I can make just a couple points on that 
resolution, it is good for us to note what the vote was, but 
also, we need to remember that Senegal as a member of the OIC, 
the Organization of Islamic Cooperation, is one of the few that 
has maintained for a long time diplomatic relations with Israel 
despite pressure.
    The second point I just want to make on that resolution is 
that it was a unanimous resolution. The United States will have 
abstained, but it was 14 votes, all the countries on the 
committee voted for that resolution.
    The final point I would make is that, as we speak today, 
the Embassy of Israel is still open in Senegal.
    And, just to conclude, saying that really the discussion 
and the conversation continues between the two countries. And 
as outsiders, as partners, as friends, we can only continue to 
work with the Government of Senegal in making sure they know 
where American values stand and what our stand is in relation 
to the other friends.
    Senator Flake. Just quickly on Guinea-Bissau, there are 
allegations that some of the military have been involved in 
drug trafficking. What cooperation can we have or do we have 
with the Government to ensure that that does not continue?
    Ambassador Mushingi. Thank you, Senator, for that question.
    Guinea-Bissau, as we said earlier, is really going through 
this political impasse. But we have to note also that the 
current democratically elected government is trying to work 
with their equivalent of the national assembly.
    On drug trafficking especially, I had my briefing, my 
consultation with a colleague from the Drug Enforcement Agency. 
I have had my meeting with the USAID, my meeting with DOD. All 
of us are working with the people of Guinea-Bissau, the 
Government of Guinea-Bissau, to make sure that they keep their 
attention focused on this issue of drug trafficking.
    The U.S. Coast Guard was looking at their port security 
because most of the trafficking comes through the port. And 
with the professionalization of the military, we are trying to 
get a military, a Guinea-Bissau military, that is aware of 
these issues and try to counter this drug trafficking problem.
    Senator Flake. Thank you. We have agreed to try to do this 
in one round, so I will continue to go over my time limit, if 
that is okay.
    Mr. Haskell, how many outside of your immediate family and 
the State Department know there is a Republic of the Congo and 
not just the DRC? [Laughter.]
    Senator Flake. You do not have to answer that, but go 
ahead.
    Mr. Haskell. I am trying to think of something clever to 
say.
    No, it is true. I think there is a bit of Congo confusion, 
but I think the relationship with the Republic of the Congo is 
very important in its own right.
    Senator Flake. It is. I am grateful that we have put the 
importance on it.
    Part of the problem that we have had in terms of a business 
environment in the Republic of the Congo has been the 
Government's unwillingness to settle its debt to contractors 
and individuals who have done work there in the past.
    What role will you have, if confirmed, in trying to get 
them to address that issue?
    Mr. Haskell. Thank you for that question.
    I think that if one just looked at Congo-Brazzaville 
neutrally or objectively, you would think that it would be a 
tremendous investment destination for U.S. investment. There is 
really significant natural resources, the petroleum sector and 
mining and forestry. And yet we really do not see that.
    We do see some U.S. companies that have invested there. 
Chevron is active in the petroleum sector. Seaboard, which is a 
Kansas-based food processing company, operates there. But not 
the kind of level that you would expect, given the resources 
that they do have.
    That really has to do with a doing-business environment 
that is extremely difficult. On the World Bank's ranking of 
doing business in countries, I believe the Republic of the 
Congo ranks 177 worldwide out of some 190 or so nations, which 
is poor not just by worldwide standards but, frankly, poor even 
in terms of the neighborhood, which has not always been a great 
place to do business.
    So I think it is really important to work with the 
Government to identify those issues. I think at a time of low 
oil prices, there is real interest in the Government in looking 
at diversifying the economy, about moving into 
entrepreneurship, about looking at other things. That is the 
kind of assistance and help that we can provide.
    I also think that one thing, that one case we have to make, 
and we have made it over time but we need to continue to make 
it, is when you do have the kind of disputes that you referred 
to in your question, it is so important that the Republic of 
the Congo try to resolve these disputes in a transparent manner 
with the folks, with the businesses that they have disputes 
with, because that sends a signal to other investors about the 
possibility of going there.
    So, if confirmed, I can assure you that I will be an 
advocate for U.S. businesses when they did get into conflicts, 
such as the one you described.
    Senator Flake. Thank you. You touched on, in your opening 
statement, but one of the important parts of our relationship 
is the preservation of wildlife, some that are only found in 
large numbers in the Republic of the Congo, lowland gorillas, 
forest elephants.
    How important is our relationship there? And what are the 
biggest threats that we can help with?
    Mr. Haskell. I think our relationship is very important.
    The Congo Forest River basin is the second largest tropical 
rain forest in the world. It is, as I noted, as you also noted, 
home to species which have really no other home or is 
particularly hospitable.
    We have had actually reasonably good success working with 
the Government of the Republic of the Congo in training their 
rangers and in working in efforts to protect their natural 
parks. I think those are important efforts. They are not 
expensive efforts. They are efforts that there are other 
international partners with whom we can work in the region. We 
will continue down that line.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. I am grateful, Mr. Chairman.
    Mr. Mushingi, thank you very much for being here. Again, 
grateful.
    Your wife, I think she smiled. There she is. It is nice to 
have your family with you. That is tremendous.
    I just want to ask you a little bit about Senegal 
stability. Obviously, it is seen as one of the more stable 
countries, but they still seem to be working on reforms, and 
there were some reforms in 2016.
    Can you just evaluate those reforms for me and let me know 
what you think about its sort of democratic trajectory overall?
    Ambassador Mushingi. Thank you, Senator, for that question.
    Senegal really has proven in that region to have a 
commitment, strong commitment, to democratic values. It is one 
of the few countries where, in that region, where they have had 
a peaceful transfer of power between different administrations, 
from the opposition to the majority party. And that tradition 
has existed since independence, and it still goes on.
    Now the one thing that, if confirmed, that we will have to 
continue working on is to see how we can strengthen the 
principles that have already been acquired, that they already 
have, and that they are doing in Senegal. I was discussing this 
with a colleague, and one thing that we have to do and we have 
to continue working on are three areas that we can focus on.
    One, trying to strengthen the role of the civil societies, 
because they play an important role of kind of watchdog as far 
as the executive and the assembly, what they are doing. They 
have been vocal, they have proven their role in the society.
    The second one is really the youth bulge that we observe 
all around Africa, how we can get the young people that make up 
the majority of the population, whether in Senegal, whether in 
many other African countries, to encourage their participation 
in the democratic process.
    Nowadays, like we talk about the millennials, in some of 
those countries, we are talking about a generation of 
democracy. So that new generation, how we can get them to 
continue working in, participating in the democratic process.
    The last one is the involvement of women, and women and 
their role in the democratic process, and also their 
participation in all aspects of running the Government.
    So for Senegal, again, the basic principles of democracy, 
we share the same commitment for basic democratic rules, 
democratic principles. We just have to continue working on 
that.
    Senator Booker. If I can, two quick follow-ups on that.
    First of all, we just had a very fascinating hearing on 
Libya. We think of the role of U.S. strength often in terms of 
the military, but the people who were testifying were talking 
about the importance of the efforts we were doing to strengthen 
civil society.
    So I worry about the U.S. investments, especially with some 
of the budget proposals that have already come out, about that 
being the important role that we can be playing in stabilizing 
or even strengthening a democracy.
    Do you have any thoughts or advice, as an Article 1 branch 
of the U.S. Government that focuses on funding the State 
Department, about investing in those aspects of the State 
Department that focus on building civil society?
    Ambassador Mushingi. Thank you, Senator.
    Once again, what we are doing, what I did, for example, in 
Burkina Faso, was to make priorities with the resources we 
have. The budget is voted. We were given resources. We work 
within those resources.
    So if confirmed for Senegal, again, to make those 
priorities clear.
    Senator Booker. I am going to interrupt you. I appreciate 
it. I get your point, and you are being very good by not giving 
me your opinion on overall funding levels. I guess that means 
the chairman and I are going to have to do our work without 
your input there.
    Let me ask you this last question on Senegal. Are there any 
concrete lessons that we can apply from Senegal in terms of 
other nations around, in terms of building a stable democracy?
    Ambassador Mushingi. Thank you, Senator.
    The concrete lessons that we can apply are that, like we 
observed during the last elections, one lesson was that, 
indeed, the participation of all members of the society, all 
the citizens, is important during an election to give 
legitimacy to the people elected.
    So using civil societies, working with civil societies, 
including giving space to all the political parties, and also 
respecting the constitution of the country, all those were 
principles that were clear when Senegal was going through the 
last elections.
    Senator Booker. I am going to press for maybe one more 
question, and then we have two other Senators who have arrived, 
and I want to give them ample opportunity.
    But, Mr. Haskell, you have had a tremendous experience, 
especially I want to thank you. You have done incredible work 
as a Deputy Secretary over all of Africa, and I guess specific 
countries about the area in which you are going to be, God 
willing, the Ambassador.
    I do just have the overall concern about--the chairman made 
an insightful use of sarcasm about the confusion of two Congos. 
I have an overall concern with just America's attention and 
focus on the subcontinent as a whole, especially with the 
economic opportunities that are there, especially with the 
challenges that we have, everything from terrorism to how they 
are playing a role in other global dynamics. We have heard 
already about Israel and the like.
    I just wonder, for a guy who is new at this, you have been 
doing this for decades and focused at least on the subcontinent 
for some time now, do you have any wisdom that you would want 
to impart to myself and my colleagues here about ways to 
leverage U.S. influence in Africa for the good of humanity as 
well as American interests?
    Mr. Haskell. Thank you for that question. It is a great 
opportunity to talk about this.
    I will note, and I think sometimes something that gets lost 
a little bit in the headlines when we look at what is going on 
around Africa, is the extent to which Africa has dramatically 
transformed in a positive way over the last several decades.
    It was not that long ago where it was difficult to look at 
the continent and find too many democratic governments, or it 
was difficult to find economies that were thriving, to find 
places where innovation was occurring. Now we see it not 
everywhere on the continent but in a great many places where 
you have elections, where you have alteration of power between 
two different parties based on the results of elections, where 
you have economies, you have tech hubs in some places on the 
continent.
    I do think that the picture of the continent as a whole is 
sometimes much brighter than taking a quick glance at the 
headlines as they hit the paper. I suppose another good sign is 
the fact that occasionally Africa does make headlines in 
newspapers in a way that it really does not.
    I will echo what Ambassador Mushingi said. I spent most of 
my career as a public diplomacy officer. That means I have been 
working a great deal with civil society. I have done the 
traditional diplomacy and the rest of it. But I have worked 
with young people. I have worked with women's groups. I have 
worked with disadvantaged groups. I have worked with civil 
society, certainly.
    And I think that there is a lot to be said there for the 
advances that are occurring there, and we have made a 
tremendous difference. The United States has a role to play. 
And I think working with civil society, working with other 
international partners, working with like-minded governments, I 
think we can achieve even more moving forward.
    So I guess the one thing that I think is sort of not 
understood as well as it should be about Africa is the extent 
as to how far it has come and, frankly, how bright its future 
is.
    Senator Booker. Sir, thank you very much. And I look 
forward to continuing this conversation. I am concluding with 
my questions, but just yes or no question really quick. I think 
this is really important to Senator Flake and I.
    Did you bring your two sons to support you or to try to 
intimidate Senator Flake and I? Because they are big guys, so I 
just need to know what their role here is. [Laughter.]
    Mr. Haskell. I kind of knew you would be nice to me if they 
were here. [Laughter.]
    Senator Flake. Thank you, Senator Booker.
    Senator Barrasso?
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Haskell, you keep using the words ``civil society.'' I 
want to ask you, because I appreciate the Congo's willingness 
to assist in promoting regional stability. I have concerns 
about the human rights abuses that have been committed by the 
troops.
    I was there with a number of Senators a couple years ago, 
including Cindy McCain, Senator John McCain's wife, who is 
really a ferocious advocate. I will tell you that the Republic 
of the Congo sent peacekeepers to the Central African Republic 
to serve in the African Union peacekeeping mission and in the 
United Nations peacekeeping mission. And the United Nations 
received allegations, as you know, of sexual exploitation and 
abuse against these Republic of the Congo peacekeepers in 2016.
    So in addition, as you know, a mass grave was discovered 
linking the Congolese peacekeepers to torture and murder of 
civilians in 2016. The Republic of the Congo troops killed at 
least 18 people that we know of, including women and children, 
between December 2013 and June 2015.
    On June 8 of last year, the Minister of Justice stated that 
the soldiers in question would face justice by the end of the 
year, and I want to ask you about that.
    Unfortunately, I understand the investigation into the 
killings as well as the sexual exploitation and abuses were 
still pending at the end of 2016.
    I think everyone in this room thinks it is unacceptable, it 
is outrageous, that the United Nations peacekeepers are 
inflicting such atrocities against the very people that they 
are sent to protect.
    So as the largest contributor to the United Nations 
peacekeeping missions, the United States, I believe, must take 
action to prevent future exploitation of these vulnerable 
populations in conflict zones and to ensure individuals are 
held accountable for these crimes.
    Under United Nations rules, the Government of the Congo is 
responsible for investigating and prosecuting the troops and 
the police that they contribute to the peace mission.
    So can you bring us up-to-date, If you would know, on the 
actions that the Government of the Republic of the Congo has 
taken to prosecute the criminal conduct of these troops and if 
these soldiers have been brought to justice?
    Mr. Haskell. Thank you for that question. I think it is a 
very important issue.
    I share your description of the things that have happened 
as outrageous and as unacceptable. It also has been a sentiment 
that has been echoed by our Embassy in Brazzaville over the 
years.
    As you noted, the Republic of the Congo has had 
peacekeepers in the Central African Republic for more than a 
decade now. There have been incidents over that period of time, 
more than one, several, that are at an unacceptable level.
    Since 2014, the U.S. has been providing training for troops 
before they go, through our ACOTA program. That training is 
filled with a human rights component. The effort is to make 
sure that soldiers understand these issues and the importance 
of them in moving forward.
    Nevertheless, and I say with great concern, since the time 
that training began, we still have had another series of 
incidents that occurred. So this is of deep concern to us. We 
have raised it with the Government of the Republic of the Congo 
repeatedly. The Government has condemned these incidents when 
they have occurred. They have withdrawn the soldiers back from 
the Central African Republic and brought them back to Congo. 
And they have moved to have charges pressed against them.
    But the truth is that action has not been taken. There can 
be several reasons for that.
    One is that the Government of Congo does not have a 
military justice system, so cases are funneled into the normal 
civilian court system. Frankly, the normal civilian court 
system lacks the capacity to function effectively and does not 
function well.
    But the second, frankly, and I have not been on the ground 
yet, but we have to wonder about the will in order to prosecute 
these cases. I can assure you that, if I am confirmed, this 
will be something very important to us. It is very difficult 
for us to continue to support peacekeeping operations to the 
extent that there is not any action taken on cases like this.
    So let me echo your concerns, and I do, indeed, share them.
    Senator Barrasso. I appreciate it, because it leads to the 
next question. If you are confirmed, and I am encouraging that, 
as the U.S. Ambassador, then what steps, when you are on the 
ground, could you take to ensure their government--their 
government--takes the crimes as seriously as we all do and 
holds the troops accountable?
    Mr. Haskell. Thank you, sir. I will say that, over the 
years, I have worked on a number of human rights issues. I find 
that different strategies work in different ways. I think it is 
important to get on the ground and figure out what is the most 
important approach.
    But I assure you that this will be a top priority for me, 
if confirmed.
    Senator Barrasso. Thank you.
    Ambassador, if I can visit with you for second about al 
Qaeda in the Islamic Maghreb and related groups, they have 
threatened to attack Senegal. You are well-aware of the threats 
that are out there.
    In February 2016, the chief of staff of Senegal's armed 
forces stated, ``Terrorism can hit anywhere, and so we must 
protect ourselves.''
    So how would you characterize, currently, the Government's 
ability to respond and confront terrorist threats, which we 
know exist?
    Ambassador Mushingi. Thank you, Senator, for that question.
    That falls directly into what our priorities are in 
Senegal. In addition to economic growth that we are pursuing 
and private investment, one piece that we are involved in, we 
are continuing to invest in it, is peace and security, working 
with our DOD colleagues, especially AFRICOM.
    And as I said in my statement, in 2016, December 2016, we 
signed the defense cooperation agreement that gives us access 
to the law enforcement of Senegal, the security forces of 
Senegal, to work together and see how we can prevent, if not 
prevent, deter, if we do not deter, how we can respond, if it 
happens. So we are working in all those areas and strengthening 
the capabilities of the local security forces to respond to 
such acts.
    Of course, I was in Burkina Faso when we had the terrorist 
attack in January 2016. A few months later, I was in Cote 
d'Ivoire. So the talk was that next will be Senegal. So because 
of that, everybody, the locals and us, the partners, we are 
mobilized to do everything we can to be ready, if it happens.
    Of course, terrorism now is a global issue, and Senegal is 
aware, and we are aware of that as well.
    Senator Barrasso. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    And thank you all. Again, we apologize for the shortened 
hearing. We just came under the time that we had for the 
Gorsuch hearings, I think, close to that. [Laughter.]
    Senator Flake. But we appreciate your service and the 
answers that you gave.
    One thing that is heartening, as Senator Booker will learn 
on this committee, we are able to travel as well to Africa and 
run into people in other capacities in our Embassies that are 
then nominated for an ambassadorship or move from ambassador 
from one country to another, like Ambassador Mushingi. I just 
have learned to appreciate the expertise and the 
professionalism that our diplomatic corps, particularly in sub-
Saharan Africa, has.
    It is wonderful on this committee to deal mostly with 
career Foreign Service Officers that really know their stuff. 
That certainly is the case here.
    Again, thank you, and thank you to your family for the 
sacrifices that your families make for our country. Thank you.
    The hearing record will remain open until Friday. We ask 
the witnesses to respond promptly, if there are questions 
submitted, so that they can be part of the hearing record.
    Senator Flake. With the thanks of the committee, we stand 
adjourned.
    [Whereupon, at 2:12 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
       Ambassador Tulinabo Mushingi by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting democracy, the rule of law, and human rights has 
been a central theme throughout my 27 year career at the Department of 
State. Most recently as the U.S. Ambassador to Burkina Faso, I 
witnessed the country transition from a dictatorship to a 
democratically-elected government. During my tenure as Ambassador in 
Burkina Faso, despite risks to my personal and professional life, I 
became the consistent lone and loud voice to publicly advise against a 
proposed constitutional amendment to presidential term limits, designed 
to extend the time in office of an already long-sitting president. 
Additionally, I pushed the Government of Transition of Burkina Faso for 
timely elections during a sensitive time when some voices were 
considering a delay. Finally, following the free and transparent 
presidential election, Burkina Faso and its people witnessed the first-
ever peaceful transition of power from one civilian government to 
another.
    As the Deputy Chief of Mission in Ethiopia from 2009--2011, I 
encouraged the Ethiopian Government to allow civil society and 
opposition political parties to operate freely. Our Embassy efforts 
helped provide a path for opposition parties in Ethiopia to discuss 
their platforms, thus allowing a broader range of Ethiopian citizens to 
have a voice in their government, resulting in an increase in voter 
registration and participation. As the Management Counselor in Tanzania 
from 2006-2009, I participated in debates with Tanzanians, in which I 
promoted the rights of minorities, especially albinos. The debates were 
an important part of the Embassy's efforts to raise awareness of these 
vulnerable populations, which encouraged the Tanzanian Government to 
engage on minority rights issues. In Mozambique as the General Service 
Officer from 1994--1996, I participated as an international observer in 
the country's first-ever democratic elections and worked closely with 
the rest of the Embassy team to empower the Mozambican people as they 
freely elected their leaders for the first time.
    Based on my support for the democratic transition in Burkina Faso, 
I was honored to receive several awards from the people and the 
Government of Burkina Faso. Additionally, based on my dedication to 
promoting and supporting human rights and democracy during my career, I 
am honored to have been selected for the American Foreign Service 
Association's Mark Palmer Award for the Advancement of Democracy in 
2017. This award is given to members of the Foreign Service, by their 
peers, for the promotion of U.S. policies focused on advancing 
democracy, freedom and governance through bold, exemplary, imaginative 
and effective efforts during one or more assignments.

    Question 2. What are the most pressing human rights issues in 
Senegal and Guinea-Bissau? What are the most important steps you expect 
to take--if confirmed--to promote human rights and democracy in Senegal 
and Guinea-Bissau? What do you hope to accomplish through these 
actions?

    Answer. Senegal generally has a strong record on protecting human 
rights and the trend is encouraging. However, as the Department of 
State has highlighted in its annual Country Reports on Human Rights 
Practices, human rights issues still exist, including harsh prison 
conditions, lengthy pretrial detention, discrimination and violence 
against women, the forced begging of young boys, and widespread 
discrimination against LGBTI individuals. The United States has 
programs in place to promote human rights in Senegal, and our Embassy 
in Dakar remains engaged on these important issues. If confirmed, I 
will strengthen efforts already in place and will look for any 
additional opportunities to promote human rights and tolerance in 
Senegal.
    Guinea-Bissau's human rights situation is adversely affected by the 
country's struggles with poverty and political instability. While the 
country does largely enjoy freedom of assembly, speech, and religion, 
many problems persist. Impunity and corruption, poor prison conditions, 
and violence, sexual exploitation, and discrimination against women and 
girls continue--as does the practice of female genital mutilation/
cutting (FGM/C). If confirmed, I will focus on strengthening Guinea-
Bissau's democratic institutions and respect for human rights. I will 
continue our work with the Government of Guinea-Bissau and other 
partners on security sector reform and will press the Government of 
Guinea-Bissau to undertake necessary political and economic reforms.
    I am optimistic that, by working closely with government and civil 
society in Senegal and Guinea-Bissau to advance human rights and 
democracy, the United States can make a meaningful impact and improve 
the lives of millions of people in the region.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Senegal and Guinea-
Bissau in advancing human rights, civil society and democracy in 
general?

    Answer. Senegal deserves praise for its longstanding tradition of 
democratic governance, including two peaceful transfers of power from 
the ruling party to the opposition since 2000. The country is home to a 
vibrant civil society that continues to operate freely.
    The Government of Senegal continues to take significant steps to 
advance human rights, but more work remains to be done, in particular 
on protecting the human rights of vulnerable populations, including 
prisoners, women, children, and LGBTI individuals. Challenges arise 
from weak institutional capacity and limited resources. Additionally, 
cultural practices or beliefs sometimes encourage discrimination 
against LGBTI individuals and society often ignores harsh conditions 
faced by many young boys forced to beg on the street. Civil society 
groups in Senegal work tirelessly to combat these cultural practices 
and beliefs, and a number of NGOs, both national and international, 
monitor human rights issues in Senegal. Our Embassy in Dakar works with 
many of these NGOs and civil society groups. If confirmed, I will 
continue this cooperation and, where possible, expand our engagement 
with our Senegalese partners to address human rights issues.
    In Guinea-Bissau, obstacles include corruption, lack of resources, 
training, and weak institutional capacity within the Government and the 
security forces. The prerequisite for improving the country's human 
rights situation is political stability and a shift in the culture of 
corruption and impunity that currently prevails. The United States and 
other donor nations support programs in place to assist in overcoming 
these impediments.
    Finally, I believe that education plays a key role in promoting 
tolerance and improving human rights conditions, and, if confirmed, 
will work with the team at our Embassy in Dakar on effective public 
diplomacy strategies to engage with wide audiences in both Senegal and 
Guinea-Bissau to inform and generate debate about human rights 
conditions.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Senegal and Guinea-Bissau? If confirmed, 
what steps will you take to pro-actively support the Leahy Law and 
similar efforts, and ensure that provisions of U.S. security assistance 
and security cooperation activities reinforce human rights?

    Answer. If confirmed, one of my most important goals will be 
improving respect for human rights in Senegal and Guinea-Bissau, so 
that all Senegalese and Bissau-Guineans have the opportunity to 
exercise their fundamental freedoms and live their lives without fear. 
My efforts in Senegal will focus on improving prison conditions, 
reducing lengthy pretrial detention, and combating discrimination and 
violence against women, including rape and female genital mutilation/
cutting (FGM/C), supporting the Senegalese Government's attempts to 
combat forced begging by children, and encouraging equal treatment 
under the law for all Senegalese, including LGBTI individuals. In 
Guinea-Bissau, I will focus on addressing issues of corruption and 
impunity in the Government, improving prison conditions and combating 
violence against women and girls, including rape, sexual exploitation 
and FGM/C. Human rights organizations and other NGOs are critical to 
this work, and, if confirmed, I look forward to engaging with them in 
both Senegal and Guinea-Bissau.
    The Department of State vets all assistance to security forces in 
Senegal and Guinea-Bissau in accordance with the Leahy Law, without 
exception. If confirmed, I will ensure that our vetting continues to be 
comprehensive, thorough, and in full compliance with the Leahy laws, 
and that those who violate human rights are restricted from receiving 
any U.S. training or other assistance until the responsible actors are 
brought to justice. Furthermore, I will strongly urge the Senegalese 
and Bissau-Guinean Governments to hold any violators accountable for 
their actions.

    Question 5. Will you and your embassy team actively engage with 
Senegal and Guinea-Bissau to address cases of key political prisoners 
or persons otherwise unjustly targeted by Senegal and Guinea-Bissau?

    Answer. If confirmed, and if necessary, my staff and I will raise 
our concerns about political prisoners or persons otherwise unjustly 
targeted by the Governments of Senegal or Guinea-Bissau. Thankfully, 
there are no political prisoners in either Senegal or Guinea-Bissau at 
this time, but the respective oppositions in both countries allege that 
certain individuals have been unjustly targeted for prosecution by 
their government. Our Embassy in Dakar continues to monitor these 
cases. If confirmed, I and my team will actively engage with the 
Government, opposition, and civil society regarding any cases in which 
individuals are unjustly targeted.
    Question 6. Will you engage with Senegal and Guinea-Bissau on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Promoting human rights, civil rights and good governance is 
a task that I take extremely seriously and, if confirmed, I will engage 
with the respective governments of Senegal and Guinea-Bissau on these 
matters.

    Question 7. According to the Country Report for Human Rights 
Practices for this year, ``Police are mandated to fight corruption but 
were ineffective and received minimal external assistance or support.''

   What specific steps will you take to help police, and the 
        Government more broadly to address corruption if confirmed as 
        Ambassador? How will your actions to help combat bolster our 
        efforts to address narcotics trafficking?

    Answer. Weak governance and corruption in Guinea-Bissau have 
threatened U.S. interests through the facilitation of the illegal drug 
trade from South America to Europe. Supporting the Government of 
Guinea-Bissau's efforts to combat drug trafficking is one of our main 
policy objectives. We work closely with the United Nations in Guinea-
Bissau and have provided $780,000 to support a Bissau-Guinean 
interagency unit (the Trans-National Crime Unit), led by the Judicial 
Police, to investigate and combat drug trafficking and other organized 
crime, and to professionalize criminal justice services. The Drug 
Enforcement Administration has sent several Judicial Police officers 
for regional training at the International Law Enforcement Academy in 
Ghana.
    If confirmed, I will work to ensure the effectiveness of such 
programs in strengthening Bissau-Guinean institutions to address 
corruption and combat drug trafficking and organized crime.

    Question 8. According to the World Bank, ``A successful transition 
towards a less fragile and more prosperous future will depend on the 
Government's ability to regain popular legitimacy by restoring basic 
state functions and providing key public services, and creating the 
basic conditions for shared economic growth.''

   What steps has the United States taken to help in those areas since 
        the restoration of democratic rule? What specific steps will 
        you take if confirmed as Ambassador to further those goals?

    Answer. The United States provides a modest amount of assistance to 
Guinea-Bissau. The Centers for Disease Control and Prevention (CDC) 
arrived in 2014 when Ebola was present next door in Guinea. CDC has 
made a multi-year commitment of up to $5 million to build the 
capabilities of the country's health sector to fight infectious 
diseases. USAID also made a multi-year commitment of $3 million to 
strengthen and build the country's capacity to prevent, detect, and 
respond to infectious disease threats. The Department of State also 
provides security assistance through the International Military 
Education and Training (IMET) account, funded at approximately $150,000 
per year that includes a focus on civil-military relations. The United 
States, through its assessed contributions to the United Nations, also 
supports the efforts of the UN Integrated Peacebuilding Office in 
Guinea-Bissau (UNIOGBIS) to find a way to political stability and 
oversee a broad array of programs to support the Bissau-Guinean people.
    If confirmed, I intend to make the best use of U.S. taxpayer 
dollars in Guinea-Bissau by prioritizing resources that best advance 
America's interests, maximizing the effectiveness of our cooperation, 
and liaising with partner governments and the United Nations to ensure 
our assistance is well-coordinated.

    Question 9. How would you assess Senegal's commitment to anti-
corruption efforts? What explains the pardon of Karim Wade, son of 
Senegal's former president Abdoulaye Wade, who was serving a six-year 
sentence for the illegal accumulation of approximately $200 million? 
Are there steps you will take if confirmed as Ambassador to enhance 
U.S. support for anti-corruption efforts?

    Answer. Senegal has made progress in the fight against corruption. 
In 2012, when President Sall took office, he initiated several steps to 
improve Senegal's anti-corruption efforts. Among these, he approved the 
creation of an independent anti-corruption agency known by its French 
acronym as OFNAC (Office National de la Lutte contre la Fraude et la 
Corruption).
    OFNAC has its own budget and seeks to promote transparency in 
government (by compiling and reviewing asset declarations of government 
officials), raise public awareness to report corruption, and initiate 
criminal investigations. Under the current head of OFNAC, who assumed 
her post last August, the anti-corruption body is focused on ensuring 
that the law is followed and that Senegal's anti-corruption efforts are 
durable, with an aim to prevent rather than react to corruption in 
Senegal.
    Senegal has not only created this anti-corruption body but also has 
laws that require banks to report suspicious transactions, and has a 
capable financial intelligence unit which conducts follow up analysis 
of these suspicious transactions.
    With regard to Karim Wade, former Minister of State and son of 
former President Abdoulaye Wade, as you noted, President Sall 
officially pardoned him on June 24, 2016. In total, he served half of 
his six year sentence. Immediately after Karim Wade's release, 
President Sall's office released a Communique confirming that Sall had 
pardoned Wade along with two co-conspirators--Alioune Samba Diasse and 
Ibrahim Aboukhalil (aka ``Bibo Bourgi''). According to the Communique, 
the pardon released them from the remainder of their prison sentence 
but did not have any impact on the millions of dollars' worth of Wade's 
assets that had been seized or frozen, and which would not be returned. 
Observers generally agree the pardon was an attempt on the part of 
President Sall to soothe divisions within the Senegalese body politic.
    If confirmed, I will continue U.S. efforts to promote the fight 
against corruption in Senegal and will leverage our bilateral 
relationship and assistance to press for enhanced transparency in 
government, increased public awareness of reporting mechanisms for 
corruption, and robust efforts to investigate and prosecute corruption.



                               __________


     Responses to Additional Questions for the Record Submitted to
         Ambassador Tulinabo Mushingi by Senator Johnny Isakson

    Question 1. There have been numerous reports about budget cuts and 
reorganization at the State Department and USAID. This week, a budget 
document dated April 6 shows that the administration is considering 
reducing foreign assistance to Senegal by $57 million, which is a 50.5 
percent reduction. The leaked plans include the elimination of 
Senegal's funding for development assistance and PEPFAR, and a 
reduction in USAID's Global Health Programs funding for Senegal. 
However, it does show that the administration is considering a $20M 
increase to Senegal's Economic Support Fund account.

   What impact would such a proposal for funding have on the 
        effectiveness of the U.S. Mission to Senegal? Does our progress 
        in advancing U.S. strategic interests in Senegal merit a 50.5 
        percent reduction in our assistance there? Please explain why 
        or why not.

    Answer. The State Department and USAID support the President's goal 
of making government more efficient and accountable to U.S. taxpayers. 
If confirmed, I intend to make the best use of U.S. taxpayer dollars in 
Senegal by prioritizing resources that best advance America's 
interests, maximizing the effectiveness of our cooperation, and 
maintaining a robust diplomatic presence. We remain committed to a U.S. 
foreign policy in Senegal that advances the security and prosperity of 
the American people, as well as our most critical diplomatic and 
development objectives.
    As for the FY 2018 request, I cannot speak to unconfirmed numbers 
in the press. The FY 2018 Budget blueprint that was released in March 
included the overall funding level to be requested for the State 
Department and USAID programs. Beyond what is included in the Budget 
blueprint, we do not have additional details on what programs will be 
reduced as part of the FY 2018 request.



                               __________


     Responses to Additional Questions for the Record Submitted to
             Todd P. Haskell by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has been a key part of 
my work on Africa, both in the field and in the Department. During my 
first tour in Africa, as a Public Affairs Officer in Burkina Faso, I 
identified key leaders in civil society and the human rights community, 
selecting them for exchange trips to the United States and organizing 
joint programs with them. Many of these leaders went on to play an 
important role in promoting democracy in that country. As a Public 
Affairs Officer in South Africa, I partnered with civil society leaders 
in programming that focused attention on human rights issues affecting 
marginalized communities, such as victims of gender violence.
    Here in Washington, as the Office Director on Public Diplomacy, I 
emphasized exchanges on human rights and governance issues, bringing 
young Africans active in this sector to the United States. As Deputy 
Assistant Secretary in the Bureau of African Affairs, I co-chaired an 
extensive human rights dialogue with the Angolan Government, and later 
helped moderate a discussion of human rights in Angola with both a 
human rights activist and an Angolan Government representative. In 
Lesotho, I coordinated a strategy that has gone a long way toward re-
asserting civilian control over the military. In Zimbabwe, I have 
supported efforts to support the human rights community.

    Question 2. What are the most pressing human rights issues in 
Republic of Congo? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in Republic 
of Congo? What do you hope to accomplish through these actions?

    Answer. The most significant human rights problems include 
arbitrary arrests and the detention of political opponents and their 
supporters; and unlawful killings, arbitrary arrests, torture, and 
other degrading treatment of detainees by police. The welfare of 
internally displaced persons uprooted by the ongoing violence in the 
Pool region is also of serious concern.
    If confirmed, I will continue the work of our Embassy in 
Brazzaville which closely monitors and documents human rights issues in 
the Republic of Congo, and which regularly attends events organized by 
NGOs focusing on human rights to show public support for their efforts. 
If confirmed as Ambassador, I will also make human rights advocacy a 
top priority, and will regularly engage with the Congolese Government 
to urge adherence to fundamental principles guaranteed by their 
constitution of 2015, which include freedom of speech and assembly, and 
freedom from arbitrary arrest and unlawful detention. We look to see 
the Congolese Government adhere to the protections enshrined in their 
constitution and to respect human rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Republic of Congo 
in advancing human rights, civil society and democracy in general?

    Answer. The biggest potential obstacle to addressing human rights 
concerns is the climate of fear and the culture of official impunity 
perpetuated by the Government that intimidates civil society actors, 
political challengers, and independent media voices. The Government 
seldom takes steps to prosecute or punish officials who have committed 
abuses, whether in the security services or elsewhere in the 
Government.
    While the 2015 Constitution guarantees the basic rights of free 
speech and assembly, in practice these guarantees are ignored. The 
legislative and judicial branches of the Government and other nominally 
independent institutions, such as the electoral commission, are heavily 
politicized and do not play a counter-balancing role.
    These factors make advancement of human rights in the Congo 
difficult, but I intend to advocate as a priority for an improved human 
rights record.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Republic of Congo? If confirmed, what steps 
will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. If confirmed as Ambassador, I will meet with human rights, 
civil society, and other non-governmental organizations. I intend to 
ensure the Embassy will continue to advocate for the protection and 
defense of human rights, in concert with our local and international 
partners, and call for the Congolese Government to investigate and 
address credible allegations of abuse.
    As Ambassador, I would make certain the Embassy continues to 
implement Leahy vetting to ensure that all U.S. security assistance and 
security cooperation activities, including pre-deployment training to 
Congolese peacekeepers (PKO) in the Central African Republic (CAR) 
under the Africa Contingency Operations Training and Assistance (ACOTA) 
program, ensures that troops receive specific human rights training to 
reduce the risk of human rights abuses in CAR. I will do the same for 
civilian-military training with junior leaders of the Armed Forces and 
members of civil society.

    Question 5. Will you and your embassy team actively engage with 
Republic of Congo to address cases of key political prisoners or 
persons otherwise unjustly targeted by Republic of Congo?

    Answer. In the ROC, several opposition leaders, including former 
presidential candidates and scores of their supporters, are currently 
imprisoned on serious charges that appear to be fabricated.
    Generally speaking, respect for prisoners' rights, especially for 
those affiliated with opposition political parties, has been 
inconsistent with Congolese law. Prison conditions are harsh. Trials, 
if and when they are eventually held, can be subject to political 
influence.
    If confirmed as Ambassador, I will continue our advocacy for the 
respect of fundamental human rights to include the freedom of speech 
and peaceful assembly, as well as freedom from arbitrary disappearance 
and protracted detention. I will strongly advocate that any person 
detained be afforded their full constitutional rights regardless of 
political affiliation.

    Question 6. Will you engage with Republic of Congo on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. I consider human rights advocacy to be a fundamental part 
of my job as Ambassador, if confirmed, and will certainly make human 
rights, civil rights, and good governance key elements of my engagement 
with the Congolese Government.

    Question 7. This year's Country Report for Human Rights Practices 
references a joint U.N.-Congolese Government report which ``cited 
indications that sexual violence toward women and teenage girls 
corresponded to the timing of security operations in the southern Pool 
region.'' The Country Report also says that ``Human rights NGOs 
reported multiple instances of rape and sexual abuse by police.''

   What specific steps can you take if confirmed as Ambassador to 
        support accountability for security force abuses? What specific 
        steps if confirmed as Ambassador can you take to more broadly 
        to support efforts to combat gender based violence in Republic 
        of Congo?

    Answer. The issue of sexual exploitation and abuse by police and 
security forces in the Republic of Congo is one that greatly concerns 
us all.
    If confirmed as Ambassador, I will impress upon the Congolese 
Government the need to condemn sexual violence, whether perpetrated by 
security or police forces, or generally by Congolese individuals, and 
to promptly investigate and prosecute alleged perpetrators. I intend to 
ensure the Embassy also acts proactively by continuing to support the 
increased professionalism of the security sector through training and 
exchanges with Congolese military and law enforcement forces. This 
engagement should ultimately lead to improved professionalism, respect 
for the rule of law, respect for human rights, including gender rights, 
and civilian security. If confirmed as Ambassador, I will also advocate 
steps Congo can take to strengthen the capacity of civilian courts to 
hold accountable those who commit acts of gender based violence.

    Question 8. According to the Country Report for Human Rights 
Practices, while ``the law provides for criminal penalties for 
corruption by officials; however, the Government did not implement the 
law effectively, and many officials engaged in corrupt practices with 
impunity, despite the president's call for an end to corruption in his 
inauguration speech.

   What steps can you take if confirmed as Ambassador to encourage 
        effective implementation of the law? Are there other steps you 
        can take to support anticorruption efforts? What are they?

    Answer. If confirmed as Ambassador, I will ensure that the Embassy 
continues to support efforts to address the widespread corruption and 
lack of transparency that surrounds government financial practices and 
to encourage effective implementation of Congolese laws against 
corruption. I will continue the Embassy's work with existing Congolese 
anticorruption institutions to address, report and bring to justice 
those found guilty of corruption. These institutions include the 
National Agency for Financial Investigation, an anti-corruption unit 
that was initiated in 2008 under the auspices of the Central Africa 
Monetary Union, and the National Commission for the Fight against 
Corruption. I will consider appropriate ways we can help build the 
capacity of these institutions and the capacity of the judiciary 
through training and other opportunities.
    Transparency can be an important deterrent to corruption. The 
constitution mandates that senior elected or appointed officials 
disclose their financial interests and holdings both before taking 
office and upon leaving office. The constitution and law also provide 
for public access to government information for citizens, noncitizens, 
and the foreign media; however, authorities did not effectively 
implement the law. If confirmed as Ambassador, I will advocate with the 
Government for the enforcement of these important protections.



                               __________





                               NOMINATION

                              ----------                              


                          TUESDAY, MAY 2, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Flake, 
Gardner, Young, Barrasso, Portman, Cardin, Menendez, Shaheen, 
Coons, Murphy, Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We are honored to have so many people here today. I do 
wonder what is happening back in Iowa with the Governor, two 
Senators, and so many distinguished individuals here. And we 
are glad to have all of you here in support of our nominee.
    Out of deep respect for Senator Grassley and Senator Ernst, 
the ranking member and I both will defer our opening comments 
so that you do not have to sit through those. I know that you 
would like to say wonderful and glowing things about our 
nominee, and we know that you have other business that you need 
to attend to. So what we will do is ask you to please go first. 
We will then begin the business in the normal way and move to 
testimony by Governor Branstad.
    But if you would begin, the most Honorable Senator 
Grassley, we would appreciate it. We thank you for honoring us 
with your presence here today, and we thank you for your 
service in so many ways. With that, we would love to hear your 
comments.

              STATEMENT OF HON. CHARLES GRASSLEY,
                     U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you, Chairman Corker and Ranking 
Member Cardin and members of the Foreign Relations Committee. 
It is a privilege for me to be here to introduce the Governor 
of Iowa, the next ambassador to China.
    And I would say that this gentleman has been an ambassador 
all of his life for Iowa and will make a good ambassador to 
China. He has been an ambassador for Iowa within the United 
States of America as he has told other Americans about Iowa, a 
great place to create jobs, a great place to do business. And 
he has been an ambassador for Iowa around the world many, many 
times with many, many different countries, but especially with 
China being an ambassador for Iowa's exports.
    It is an honor to appear here with Senator Ernst, and it is 
even a greater privilege to introduce a person that I call a 
good friend way back when, Terry Branstad, at least to his 
first years in the Iowa legislature, 1973.
    As many of you know, Governor Branstad is the longest 
serving Governor in U.S. history. He is a lifelong Iowan who 
has devoted his life to public service, and even when he was 
not in public service as president of a university, he was 
still an ambassador for Iowa.
    After more than 22 years as my home State chief executive, 
I am proud to support Governor Branstad's nomination to serve 
our country as the next U.S. Ambassador to China. His 
nomination should come as no surprise to the people of Iowa. We 
have long known and benefited from the relationship Governor 
Branstad has with the people of China. A sister state 
relationship going way back to 1983 has grown into a successful 
trade partnership that has benefited Iowa farmers and 
businesses.
    Perhaps most notably, Governor Branstad enjoys a 30-year 
friendship with President Xi. Their first meeting took place in 
1985 when Xi was then a local provincial official who led an 
agricultural delegation to Iowa. President Xi visited Iowa 
again in 2012 when Governor Branstad was back at the helm for a 
fifth term as Governor of Iowa. Their relationship reflects a 
genuine good will and mutual respect.
    Governor Branstad has never stopped working to expand 
Iowa's trade, investment, and economic partnerships on the 
world stage most importantly, including China. He will bring 
Midwestern humility and level-headed leadership to this very 
important job representing the people of the United States and 
the President there in Beijing. He is a workhorse who is 
unafraid to get in the trenches to get the job done.
    If he is confirmed, I am confident that Governor Branstad 
will bring to bear his tireless commitment to solving problems 
and always move the ball forward. Although his heart will 
always be in Iowa and I know he will return to Iowa, I know 
that Governor Branstad will throw himself into this job of 
being an ambassador wholeheartedly.
    Governor Branstad is uniquely qualified to help strengthen 
the trade, economic, and cultural, as well as the geopolitical 
relationships between our two countries. I am pleased that he 
has now been called to serve as the ambassador. I am very 
confident that he will represent the United States well and 
excel just as he has throughout his lifelong career of public 
service, as well as his public sector leadership.
    Without reservations, I support this nomination. Thank you.
    The Chairman. Thank you very much for that.
    And to Senator Ernst, who has brought her unique and 
distinctive background to the Senate and certainly has made a 
major impact already, we welcome you and look forward to your 
comments.

                 STATEMENT OF HON. JONI ERNST, 
                     U.S. SENATOR FROM IOWA

    Senator Ernst. Thank you, Chairman Corker and Ranking 
Member Cardin and the members of the committee.
    It is my privilege to be here today, along with our 
longtime senior Senator, Senator Grassley, to introduce my 
Governor, my friend, and the longest serving Governor in U.S. 
history, Terry Branstad.
    A native Iowan, Governor Branstad served in the Iowa 
legislature before serving our State as Governor from 1983 to 
1999 and again from 2011 until what I hope will be his swift 
confirmation as U.S. Ambassador to China.
    Having worked alongside the Governor for many years, I know 
he will exemplify the same leadership, thoughtfulness, and 
dedication in his role as Ambassador to China on behalf of the 
United States as he did for the people of Iowa.
    Importantly, Governor Branstad also knows China and its 
leaders well. He first met President Xi Jinping while he was 
visiting Iowa on an agricultural research trip in 1985. They 
have kept in touch over the years, and Governor Branstad has 
since visited China a number of times on behalf of the State of 
Iowa.
    Iowa's extensive trade relationship with China has given 
Governor Branstad a front seat view of the complexities of our 
country's broader trade and economic relationship with China 
and will provide him with the foundation to effectively 
advocate for U.S. interests.
    While our bilateral economic relationship with China is 
certainly important, I do not have to tell you that our list of 
bilateral issues with China is long and expands beyond trade 
and investment, to include issues like North Korea, the South 
China Sea, human rights, and more. Accordingly, the position of 
U.S. Ambassador to China is one of the most important 
ambassadorial positions in the world, and I am confident that 
President Trump has made an excellent choice in nominating Iowa 
Governor Terry Branstad for this role. I look forward to him 
being confirmed by the Senate and bringing the Iowa way to 
Beijing.
    I also want to extend my thanks to the support that has 
been given to Governor Branstad by his wonderful family, and I 
know he will introduce Chris and the rest of his family soon. 
They are truly an asset to Iowa. I know that they are going to 
be a greater asset for the United States of America.
    Thank you, Mr. Chairman.
    The Chairman. Thank you both. I know our ranking member 
would love to thank you for your comments.
    Senator Cardin. Yes.
    Governor Branstad, let me just point out that your two 
Senators are very much respected in this institution and having 
both of them here to speak on your behalf is impressive. And we 
thank both of our colleagues for sharing their comments about 
you.
    The Chairman. Thank you both very much.
    We will now return to our opening comments. Governor 
Branstad, it is a pleasure to welcome you here today as our 
nominee to be the next Ambassador to China. I am glad to see 
members of your family here today as well. I wish you all the 
best as you embark on this exciting new venture.
    Beijing is not Des Moines. [Laughter.]
    The Chairman. But I know that your relationship with 
President Xi spans decades, and I am confident that you fully 
understand the breadth and depth of the challenges awaiting you 
in China.
    When we met in my office, I appreciated your honesty and 
candor about managing the complexities and relations with 
China, and I look forward to expanding on that conversation 
here today.
    As I have said previously, the U.S.-China is one of the 
most consequential relationships for U.S. national interests. 
The nature of relations between Washington and Beijing will 
have a profound impact on the security, prosperity, and 
stability in the region for the coming years. You will have a 
unique opportunity to help shape that relationship and move it 
in a direction that is beneficial for both countries.
    But it certainly will be a difficult task as U.S. relations 
with China have been trending in the wrong direction for 
several years. China's militarization of the South China Sea, 
cyber theft of intellectual property, which again--I was at a 
meeting last night on this very topic. It is just outright 
theft--outright theft. And it is something that has to end. The 
discriminatory trade and investment practices in addition are 
just a few of the areas of rising tension in the relationship 
between the United States and them.
    We can no longer afford to simply manage our differences 
with China as Beijing continues to challenge U.S. power and 
disregard international norms. However, we should always seek 
cooperation in areas where we can work together, including 
reducing the threat posed by North Korea.
    I also believe that we must be clear-eyed about China's 
long-term goals, which are not necessarily aligned with U.S. 
national interests. Short-term gains should not come at the 
expense of long-term U.S. national interests, values, rule of 
law, international norms, and our alliance commitments, of 
which we have many in the region.
    We must be direct and willing to use our leverage when 
China challenges U.S. political, security, and economic 
interests.
    Governor Branstad, I look forward to hearing from you about 
your vision for relations with China and plans to serve as an 
effective advocate for U.S. national interests.
    Again, thank you for being here. I look forward to our 
ranking member's comments and then your testimony. We 
appreciate you and your family all being here.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman.
    And, Governor Branstad, once again welcome to our 
committee, and thank you very much for your career of public 
service and your willingness to continue to serve our country 
in a very important position as Ambassador to China.
    I also want to share thanks to your family because this is 
a family sacrifice, and we appreciate the willingness of your 
family to allow your service to our country.
    You have a very distinguished background, a very impressive 
background. A confirmation hearing gives us an opportunity not 
only to look at your qualifications but also to review the 
scope and trajectory of the U.S. relationship with the country 
that you have been nominated to represent the United States, 
China. Indeed, as we contemplate how to address the situation 
in North Korea, we recognize that China plays a critical role 
in that regard. So as we look at so many of the circumstances 
around the world, China comes up in our view.
    30 years ago, we were debating whether or not China would 
be a major power. That debate is now settled. But the question 
of what sort of power China will be remains. Will China help to 
support peace and stability in Asia or seek to overturn the 
regular order? Will China become a trade partner committed to 
the enforcement of international laws, or will we continue to 
see the flouting of international norms, as Chairman Corker has 
mentioned? Will China open space for its citizens to express 
their own views and ideas, or will it continue to brutally 
repress its own people?
    These are questions that you will confront, if confirmed, 
and while we may not yet know all the answers, I am concerned 
by some of what we are seeing. For example, we have seen an 
increasing provocative China in the maritime domains, coercing 
and intimidating neighbors in the East China Sea and South 
China Sea and attempting to use the threat of military force to 
address territorial and regional disputes. And as you and I 
discussed when we sat together recently in my office, I am 
deeply concerned by the deterioration of human rights in China 
and the environment for civil society and independent voices in 
that country.
    When I joined the Senate Foreign Relations Subcommittee on 
East Asia, President Xi became the President of China. At that 
time, many of us hoped that China was on the verge of a more 
progressive or reformist era and that along with growing 
interaction with the outside world and significant economic 
development, human rights would, indeed, improve. Yet, the 
opposite has proven true. President Xi's administration has 
adopted a slew of laws that violate the most basic human rights 
of the Chinese people and that presents challenges to U.S. 
interests and values as well. The community of civil activists 
in China that thrived in the 1990s and 2000s, partly as a 
result of the U.S. engagement both diplomatically and 
economically, have come under assault as never before. When I 
joined the subcommittee, it was unthinkable that people in the 
United States or EU would be detained by Chinese authorities 
inside and outside mainland China. Yet, that is the current 
reality.
    And all the while, we still do not know if the Dalai Lama 
will be allowed to return to Tibet. We do not know the 
whereabouts of Panchen Lama. We do not know whether authorities 
will release the Nobel Laureate, Liu Xiaobo, in 2020, and we do 
not know if the people of Hong Kong will be able to continue to 
exercise genuine autonomy. But we do know that President Xi is 
set to remain in power for at least the next 5 years.
    So I am very interested in hearing your thoughts on how, if 
confirmed, you will stand with civil society and with the 
Chinese people, including when it comes to labor rights where I 
must say your record as Governor in Iowa has raised some 
concerns, and assure that human rights and universal values are 
at the heart of U.S. policy with China.
    I am also interested in your thoughts as to what we may see 
by way of cooperation with China on North Korea going forward. 
I understand what the President has asked of China, but I 
remain concerned that we have seen this movie before and we 
really have not seen any change in China's position as it 
relates to North Korea. Many of us are concerned that they will 
only go so far, but they are concerned about the stability of 
the current regime will prevent them from taking the necessary 
steps to change the equation for North Korea. We welcome your 
thoughts on that matter.
    So let me lastly mention one additional issue. You will 
take, if confirmed, the oath of office to protect and defend 
the Constitution of the United States. Before President Trump 
took the oath of office, many of us urged him to take steps to 
avoid a constitutional conflict with the Emolument Clause. And 
he is the only President that has not divested or set up blind 
trusts for his financial institutions. That is not your doing. 
Your doing is to represent our country, if confirmed, in China 
and must take steps to make sure that our Constitution is not 
violated, that is, that the Trump enterprises are not given 
favors by the China regime that would violate the Emolument 
Clause. So we are interested in learning how you intend to make 
sure that you defend the Constitution and protect against that 
particular challenge.
    So I look forward to your thoughts on how you can elevate 
the current state of play between the United States and China, 
your thoughts on how to move the relationship forward 
especially on human rights, and what you hope to achieve, if 
confirmed, as our Ambassador to the People's Republic of China. 
Thank you.
    The Chairman. Thank you, Senator Cardin.
    With that, your entire written testimony, without 
objection, will be entered into the record. So do not feel that 
you have to go through all of it. If you could summarize some 
comments in about 5 minutes, that would be great. We welcome 
you here. We thank you for your willingness to serve in this 
capacity and look forward to your comments.

  STATEMENT OF HON. TERRY BRANSTAD OF IOWA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE PEOPLE'S REPUBLIC OF CHINA

    Governor Branstad. Thank you. I would like to begin by 
thanking Iowa's two outstanding Senators, Senator Grassley and 
Senator Ernst. They are very conscientious, hardworking, and 
outstanding public servants, and I am proud to have them as 
friends. And I appreciate their support.
    And, Chairman Corker, Ranking Member Cardin, members of the 
committee, it is indeed an honor to appear before you today as 
President Trump's nominee to be the United States Ambassador to 
the People's Republic of China. Never in my wildest dreams 
would I have thought that a farm boy from a small town of 
Leland, Iowa would one day have the opportunity to become, with 
your consent, the ambassador to one of the world's most 
influential countries and one of America's leading trading 
partners. I am thankful to President Trump for his confidence 
and his trust in me to take this important diplomatic role.
    I would not be where I am today if it were not for the 
people sitting right behind me. My wife of almost 45 years 
Chris is my constant support and the most understanding person 
that I know. Thank you, honey. Also, I want to introduce my 
sons, Eric and Marcus, who have joined me today. I know that my 
daughter Allison, who is a third grade teacher, and my 
children's spouses, Adrienne, Jerry, and Nicole, and our seven 
grandchildren are watching from afar. They have already wished 
me good luck this morning. Pursuing this opportunity was a 
family decision, and I am very thankful for their guidance, 
encouragement, and support especially over the last several 
months.
    If confirmed as ambassador, I will work every day to 
represent American values to the leadership of China and the 
Chinese people at large, values that include upholding human 
rights for all and a free and open market, a rules-based order 
in the oceans surrounding China, and the importance of a free 
press.
    I look forward to joining the impressive and committed team 
of public servants and their families from the U.S. State 
Department and many other U.S. agencies at our embassy in 
Beijing and the consulates across China. Leading this team of 
dedicated professionals, who are working as we speak to promote 
America's interests in China, would be a great honor and 
responsibility that I would not take lightly.
    My relationship with the President of China, Xi Jinping, 
goes way back, as you have heard, to 1985. As a first-term 
Governor, I had the opportunity to welcome an agriculture 
delegation from the Hebei Province of China, Iowa's sister 
state, to the State of Iowa. Leading that delegation was a 
young man whose business card read Xi Jinping, Feed Association 
of Shijiazhuang. During the trip, our sister state director 
Luca Baroni took our one Chinese visitors on tours of farms and 
factories and to receptions and dinners with our sister state 
volunteers. They attended a birthday party, a Mississippi River 
cruise, and we showed them true Iowa life and hospitality. I 
even hosted the delegation in the Governor's formal office. A 
connection was made and a friendship was founded. To this day, 
President Xi still speaks fondly of Iowa and the hospitality he 
enjoyed there so many years ago.
    If confirmed, I hope to use my unique position as an old 
friend of President Xi and a trusted confidant of President 
Trump to positively influence the U.S.-China relationship. As 
the Governor of Iowa, I saw firsthand the importance of a 
positive and healthy trade relationship between our two 
countries. Nearly one out of every two rows of Iowa soybeans 
last year were sent to China, as well as $33.5 million worth of 
pork in 2016. The importance of trade extends beyond 
agriculture as well. Aviation products, manufactured goods, 
chemicals, electronics, and many other products and services 
are exported to China daily and help support and sustain the 
American economy.
    As ambassador, I will continue the work that I have started 
as Governor to open up the Chinese markets to American 
businesses of all sorts. This will be good for the American 
people as it will create more jobs and good for the Chinese 
people as they will have more access to the best-made products 
that the world has to offer. In keeping with President Trump's 
mission, I am committed to making sure that the trade 
relationship between the United States and China puts the 
American worker first.
    Our relationship with China is multifaceted, not solely 
focused on trade. And I am aware of the critical national 
security issues that our two countries must work together on as 
well. As President Trump made clear when he met with President 
Xi at Mar-a-Largo a few weeks ago, China could play a critical 
role in convincing North Korea to dismantle its nuclear and 
missile programs, a strategic policy that would boost the 
security of America, China, and the entire world.
    As Governor, I had the opportunity to visit Taiwan as well. 
As ambassador, I will be committed to communicating the United 
States' continued support for our One China policy expressed in 
the three joint communiques and the Taiwan Relations Act. We 
remain committed to our goal to see that this cross-strait 
issue is peacefully resolved in a manner that is acceptable to 
both sides of the strait.
    I saw firsthand many of the cybersecurity concerns that the 
United States has in regard to China during my time as Governor 
when I received a monthly security briefing. The protection of 
intellectual property and technology security is of utmost 
importance to our country, and I will continue to make that 
clear in frank discussions with the Chinese Government.
    On the South China Sea, China cannot be allowed to use its 
artificial islands to coerce its neighbors or limit freedom of 
navigation or overflight. The United States will uphold freedom 
of navigation and overflight by continuing to fly, sail, and 
operate wherever international law allows.
    As Governor, I had the opportunity to travel to all of 
Iowa's 99 counties every year, a feat that is affectionately 
named for your esteemed colleague as ``the full Grassley.'' As 
ambassador, I hope to continue this tradition by visiting every 
province in China. With a country as large and expansive as 
China, I know there is much life and activity outside of 
Beijing. I look forward to connecting with the Chinese people 
and continuing a vibrant exchange of culture and ideas that we 
began back in 1983 when I signed the sister state proclamation 
with Governor Jon Xu Wang.
    If confirmed, I will work tirelessly to represent America 
and her citizens to the best of my ability. I will champion 
American interests in China with as much fervor and dedication 
as I have championed Iowa's interests during my more than 22 
years as Governor. I am humbled to be considered for this 
position.
    Mr. Chairman, Mr. Ranking Member, members of the committee, 
thank you for this opportunity to appear before you today. I 
welcome your comments, questions, and continued dialogue. Thank 
you.
    [Governor Branstad's prepared statement follows:]


              Prepared Statement of Hon. Terry E. Branstad

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, It is an honor to appear before you today as President 
Trump's nominee to be the United States Ambassador to the People's 
Republic of China. Never in my wildest dreams would I have thought that 
a boy from a small farm in Leland, Iowa, would one day have the 
opportunity to become, with your consent, the ambassador to one of the 
world's most influential countries and one of America's largest trading 
partners. I am thankful to President Trump for his confidence and trust 
in me to take on this important diplomatic role.
    I would not be where I am today if it were not for the people 
sitting right behind me. My wife of almost 45 years, Chris, is my 
constant support and the most understanding person I know. I would also 
like to introduce you to my two sons, Eric and Marcus, who have joined 
me today. I know my daughter Allison and my children's spouses, 
Adrienne, Jerry, and Nicole, and our seven grandchildren, are watching 
from afar. Pursuing this opportunity was a family decision, and I am 
thankful for their guidance, encouragement, and support, especially 
over the past few months.
    If confirmed, as ambassador, I will work every day to represent 
American values to the leadership of China and the Chinese people at 
large; values that include upholding human rights for all, a free and 
open market, a rules-based order in the oceans surrounding China, and 
the importance of a free press.
    I look forward to joining the impressive and committed team of 
public servants and their families from the U.S. State Department and 
many other U.S. Government agencies at our embassy in Beijing and 
consulates across China. Leading this team of dedicated professionals, 
who are working as we speak to promote America's interests in China, 
would be a great honor and a responsibility that I would not take 
lightly.
    My relationship with the President of China, Xi Jinping, goes all 
of the way back to 1985. As a first term Governor, I had the 
opportunity to welcome an agriculture delegation from the Hebei 
Province of China, Iowa's sister state, to Iowa. Leading that 
delegation was a young man whose business card read Xi Jinping, Feed 
Association of Shijiazhuang. During the trip, our sister state director 
Luca Baroni took our new Chinese visitors on tours of farms and 
factories, and to receptions and dinners with the sister state 
volunteers. They attended a birthday party, a Mississippi River cruise, 
and we showed them a true taste of Iowa life. I even hosted the 
delegation in the Governor's office. A connection was made and a 
friendship was founded. To this day, President Xi still speaks fondly 
of Iowa and the hospitality he enjoyed there so many years ago.
    If confirmed, I hope to use my unique position as an ``old friend'' 
of President Xi and a trusted confidant of President Trump to 
positively influence the U.S.-China relationship. As the Governor of 
Iowa, I saw first-hand the importance of a positive and healthy trade 
relationship between our two countries. Nearly, one out of every two 
rows of Iowa soybeans is sent to China, as well as $33.5 million in 
pork in 2016. The importance of trade extends well beyond agriculture 
too. Aviation products, manufactured goods, chemicals, electronics, and 
many other products and services are exported to China daily and help 
support and sustain the American economy.
    As ambassador, I will continue the work I started while Governor to 
open up the Chinese markets to American businesses of all sorts. This 
will be good for the American people as it will create more jobs, and 
good for the Chinese people as they will have more access to the best-
made products this world has to offer. In keeping with the President's 
mission, I am also committed to making sure that the trade relationship 
between the United States and China puts the American worker first.
    Our relationship with China is multi-faceted and not solely focused 
on trade. I am well aware of the critical national security issues our 
two countries must work together on as well. As President Trump made 
clear when he met with President Xi at Mar-a-Lago a few weeks ago, 
China could play a critical role in convincing North Korea to dismantle 
its nuclear and missile programs, a strategic policy that boosts the 
security of America, China, and the entire world.
    As Governor, I had the opportunity to visit Taiwan. As ambassador, 
I will be committed to communicating the United States' continued 
support of our one China Policy, expressed in the Three Joint 
Communiques and the Taiwan Relations Act. We remain committed to our 
goal to see this cross-Strait issue peacefully resolved in a manner 
that is acceptable to both sides of the Strait.
    I saw first-hand many of the cybersecurity concerns the United 
States has in regards to China during my time as Governor, when I 
received my monthly security briefings. The protection of intellectual 
property and technology security is of the utmost importance to our 
country, and I will continue to make that clear in frank conversations 
with the Chinese Government.
    On the South China Sea, China cannot be allowed to use its 
artificial islands to coerce its neighbors or limit freedom of 
navigation or overflight. The United States will uphold freedom of 
navigation and overflight by continuing to fly, sail, and operate 
wherever international law allows.
    As Governor, I had the opportunity to travel to all 99 counties in 
Iowa every year--a feat affectionately named for your esteemed 
colleague as ``the full Grassley.'' As ambassador, I hope to continue 
this tradition by visiting every province in China. With a country as 
large and expansive as China, I know there is much life and activity 
outside of Beijing. I look forward to connecting with the Chinese 
people and continuing a vibrant exchange of culture and ideas that we 
began in 1983.
    If confirmed, I will work tirelessly to represent America and Her 
citizens to the best of my ability. I will champion American interests 
in China with as much fervor and dedication as I have championed Iowa's 
interests during my more than 22 years as Governor. I am humbled to be 
considered for this position.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to appear before you today. I welcome 
your comments, questions, and continued dialogue.


    The Chairman. Thank you so much.
    I will defer my questions to the ranking member and reserve 
my time. Senator Cardin?
    Senator Cardin. Well, Governor, let me compliment you on 
your opening statement. In a very few minutes, you have covered 
most of the important issues between the U.S.-China relations. 
And I must tell you the way that you have expressed it I 
believe expresses what I would hope to hear from our 
Ambassador-to-be to China. And I think you will find there is 
strong bipartisan support for the way that you have expressed 
U.S. interests in these areas.
    I particularly appreciate that in the opening part of your 
statement, you mentioned that you would represent American 
values and that would include upholding human rights for all. 
You and I have talked about that. I have made it a practice to 
ask all nominees for ambassadors representing the United States 
questions related to their commitment to human rights. But for 
China, it is particularly important.
    We have found that China is moving in the wrong direction, 
and you pointed that out in some of your comments and in our 
private discussions. How you conduct your affairs, where you 
travel, who you allow access to in our embassies, your reaching 
out to NGOs that have been declared by China to be unwelcome is 
a real statement about not only our values but universal 
values.
    So can you drill down a little bit more for me how you 
intend to advance our values on human rights, if confirmed as 
ambassador?
    Governor Branstad. Senator Cardin, thank you very much.
    Human rights is very important. It is a bedrock of 
America's value system. As Governor, I have always tried to go 
not only everywhere in the State of Iowa but throughout the 
world. I went to the old Soviet Union 6 weeks after Chernobyl. 
I was one of the early Governors to go to China. And yet, I 
have always tried to recognize my responsibility as an American 
to represent our values and to espouse those. And it would be 
my intention as ambassador to bring in and to bring up these 
difficult issues that the Chinese leadership may not 
particularly want to talk about but are important.
    Consequently, I am not afraid to do that. I have done that 
throughout my career. I recognize as ambassador it is an even 
bigger responsibility because I will be representing the whole 
United States of America, and when Americans or anyone else in 
the world is not treated fairly, I think I as ambassador need 
to bring that issue up to the people in power in Beijing.
    Senator Cardin. So if I understand, you would be welcoming 
to our embassy those who may disagree with the Government of 
China on their policies on human rights----
    Governor Branstad. Yes.
    Senator Cardin [continuing]. Or their political dissent?
    Governor Branstad. I would not only be willing to welcome 
people of all backgrounds to the embassy, but also to travel to 
other parts of the country to meet with them as well.
    So I think it is important. I learned this as Governor, and 
that is you do not want to just be surrounded by your staff. 
You want to get out and see the real people in your State and 
in the country. And as ambassador, I want to get out and see 
the people in China. I want to learn from those people that do 
not feel they are being treated fairly as well.
    Senator Cardin. Senator Rubio and I sent a letter to 
Secretary Tillerson requesting that he place a high priority on 
human rights in our bilateral relationship with China, 
mentioning the problems of religious minorities, including the 
people of Tibet. Would you be willing to take advice from 
Members of Congress on individual cases and championing them 
and work with us as we try to raise these issues?
    Governor Branstad. Yes, Senator. In fact, as I have gone 
around and met individually with members of the Senate Foreign 
Relations Committee, a number of those have been brought to my 
attention. And it would be my intent to work with all the 
members of this committee and others in the Senate on these 
issues. I believe that is part of the responsibility of the 
ambassador is to be there on the ground in China and to be an 
advocate for our interests.
    Senator Cardin. And my last request would be that I have 
asked staff to keep in touch with our embassies. I appreciate 
the fact that you mentioned in your opening statement the 
professionalism of the people that serve in the mission that 
are critically important. They take direction from the 
ambassador. I would ask that you respond to our staff, both 
staffs, as to steps being taken to advance the human rights 
agenda so that we can work together in regards to elevating the 
importance of that part of our relationship.
    Governor Branstad. I certainly intend to do that. And I do 
understand that we have a very dedicated professional staff, 
both the State Department and other agencies, and it is a very 
large staff that is available at the embassy and the 
consulates. I intend to work with them. I want to learn from 
them as much as I can, but I also want to work directly with 
you and other Members of the United States Senate and your 
staff.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Governor, thanks so much for your 
willingness to serve. I thank your family for their years of 
service as well to the State of Iowa. We are fortunate to have 
someone who has a personal relationship with the President of 
China who has put themselves forward as well.
    I enjoyed our visit together. One of the things we talked 
about was North Korea. And you have also touched on this very 
important topic in your prepared statement indicating that 
China could play a critical role in convincing North Korea to 
dismantle its nuclear missile programs.
    What more specifically do you think that China could or 
should do to push North Korea to take the necessary steps with 
respect to its missile and nuclear programs?
    Governor Branstad. China, as you know, is a neighbor of 
North Korea. They are a major trading partner with North Korea. 
They have recently put some restrictions on importing coal from 
North Korea. I think there are other things they can do 
diplomatically and economically to send a clear signal that 
they, as well as the United States and other countries in the 
world, do not tolerate the expansion of nuclear technology and 
missiles by the North Korean leadership. It is a threat to all 
of humankind, and I think it is critically important that we 
look at all opportunities to work together. I know that this 
has been discussed by President Trump and President Xi. I would 
want to do all I can to serve as a key go-between as we explore 
how we can work together with other nations also in Asia to 
address this critical situation.
    Senator Young. So I am curious whether there is a menu of 
particular economic or diplomatic things we can do to heighten 
the pressure as this pressure campaign continues. Perhaps from 
a process standpoint, you can speak to how you might try and 
collaborate regionally with the regional bureau there.
    Our Secretary of State said publicly within the last couple 
of days that he does not think that our State Department is 
doing a good job connecting its State level objectives and 
initiatives to the broader regional concerns. As ambassador to 
China, could you speak to that as you talk to some specifics on 
North Korea, please?
    Governor Branstad. Well, I think we need to always look at 
how we can do better and how we can improve, recognizing that 
the world is facing a very critical threat from North Korea at 
this time. And I want to make sure that we are not leaving any 
stone unturned in trying to look at all the different avenues 
that are available, both working with China and working with 
other nations especially in that part of the world.
    Senator Young. Well, I will look forward to working with 
you. If you see a lack of coordination, of course, you would be 
communicating that, I presume, to the Secretary of State. 
Hopefully you know you have individuals on this committee which 
would like to work with you to improve that level of 
coordination.
    Governor Branstad. I recently met with Secretary Tillerson. 
We had a very constructive meeting. And I intend to work very 
closely with him and with the other State Department personnel, 
of which there are some very experienced and capable people at 
the embassy in Beijing right now.
    Senator Young. I will pivot very quickly to the protection 
of intellectual property. In your prepared statement, you 
indicated it is of the utmost importance to our country. I 
think all of us here agree with that. The U.S. leads the world 
in biomedical research and discovery. However, weak IP 
protections and a growing array of localization barriers abroad 
are threatening innovative medicine exports and the many jobs 
they support here at home, including in my home State of 
Indiana.
    China, in particular, is a serious offender. Beijing has 
not lived up to the intellectual property commitments that it 
made to the U.S. and others through the World Trade 
Organization.
    If confirmed, in order to protect America's innovation and 
jobs, what will you do to push the Chinese to respect IP 
protections, including in the area of biomedical research?
    Governor Branstad. The point you raise is very critical. 
And we have had some experience with that with regard to plant 
breeding, and we actually even had Chinese that were stealing 
knowledge from American companies. And I think a few years ago, 
we saw a criminal prosecution of that, and it occurred in my 
State. But I recognize, especially because of our world 
leadership in medical technology, that is a critical area. But 
I have heard from many other manufacturers and other businesses 
about the stealing of intellectual property. That is why we 
have patents, and that is why we go so far to protect 
intellectual property rights. In the meetings I have had with 
business people, not only in my State but as we have done trade 
missions, this is a critical issue.
    And I think as the Chinese have advanced, hopefully they 
are going to see that there is a danger to them as well in 
having their intellectual property stolen by other countries. 
So I think it is critically important that they abide by and 
support intellectual property rights and that it is not only 
right for America and protecting our businesses, but it is 
right for them as well. And I hope that I can convince them 
that they need to change their policies and they need to be 
more vigilant and serious about protecting intellectual 
property rights.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Corker.
    I will simply follow up on what Senator Young and Chairman 
Corker both said previously.
    When we had a chance to meet in my office, Governor, I was 
clear with you that intellectual property is also a significant 
concern of mine. I am from a State that has a long and proud 
history of invention and innovation. I was just at the Hagley 
Museum yesterday, which has the records of the DuPont Company 
and all of its early inventions. They have a remarkable 
collection of patent models, which they are actually exploring 
sharing with the Chinese people across a dozen sites in China.
    I would be interested in hearing just some more insight 
into how you will use your important and long and trusting 
friendship with President Xi and what I expect will be your 
growing knowledge of China as you visit every province to 
really make intellectual property and stopping the theft of 
America's inventions a key priority in your role as Governor, 
if confirmed.
    Governor Branstad. Well, Senator Coons, the incident that I 
was mentioned a few minutes ago actually involved DuPont 
Pioneer. As you know, we share DuPont Pioneer. They have been a 
wonderful American company, and we think it is critically 
important that the rights--and I am aware of the fact that they 
are doing some important business in China.
    We also have the World Food Prize in Iowa. And one of the 
recipients of the World Food Prize is a Chinese gentleman that 
was involved in rice. And there is an opportunity for DuPont 
Pioneer--and they are also going through a potential merger 
right now. There are opportunities for them to work together 
for the benefit of not only these great American companies but 
also Chinese businesses as well.
    And I want to do what I can from the background and 
experience I have had working especially in the agricultural 
area. And as you have heard, Xi Jinping's first visit to 
America was an ag delegation, and they were there during spring 
planting time. They visited the farm of the President of the 
Iowa Corn Growers, and they visited a turkey farm and they 
visited others and the Sukup Manufacturing Company that makes 
bins, grain bins.
    But I hope, because of that background and experience and 
because of the very good way that we treated Xi Jinping and his 
delegation, hopefully to convince him that we need his 
collaboration and cooperation in dealing with some of these 
critical issues where China has not adequately addressed the 
protection of these important intellectual property rights.
    Senator Coons. Thank you, Governor.
    I have two other quick questions for you, if I might.
    Let me offer that I look forward to working with you and 
with the Senators from Iowa, as well as my senior Senator from 
Delaware, to strengthen some of these ties between China and 
the United States with the goal of relentlessly pressing the 
importance of a shared commitment to protecting patents and 
trade secrets and other IP.
    You grow a great deal of corn and soybeans. We do too. And 
we feed them to our chickens, and we would like our chickens to 
go to China. [Laughter.]
    Governor Branstad. And Senator Perdue told me that he may 
be from Georgia, but he also raises corn and soybeans. So I was 
encouraged to hear that as well.
    Senator Coons. And as long as those corn and soybeans go to 
chickens and the chickens go to China, we are all going to be 
happy. [Laughter.]
    Senator Coons. I will tell you that we filed a complaint 
against China in the WTO I think successfully asserting that 
China is unfairly restricting U.S. chicken imports. More than 
10 percent of all chicken grown in the United States is 
exported. We have not been sustainably successfully able to 
access one of the most promising markets in the world, which is 
China. If they are going to join the world community through 
things like the WTO, they need to play by the rules. And I hope 
that you will prioritize opening the Chinese market for 
poultry, whether it is from Georgia, Iowa, or Delaware.
    Governor Branstad. Well, first of all, I agree with you 
wholeheartedly that we need to have a fair and open market for 
these products just as they have an opportunity to market a lot 
of products in our country. Poultry is really important. We do 
sell them a lot of pork, but beef is presently restricted as 
well. I have also visited with Tom Vilsack who, as you know, 
has gone now from being Secretary of Agriculture, former 
Governor of Iowa, to working with the Dairy Export Council. And 
I think there is opportunity to get more opportunity for dairy 
there as well.
    This is an area, especially when it comes to agriculture 
products, that I have had a lot of experience in, and I hope 
that because Xi Jinping has some experience and that background 
too, that it is an area maybe we can make some connection. I 
have also had some very frank discussions with Minister Han, 
who is their ag minister, on these issues.
    Senator Coons. I agree. I hope you make great progress on 
that.
    In closing, I will just reference the last topic we 
discussed, which is Africa. China has become the dominant 
investor and player in Africa, eclipsing even the United 
States. And I urge you to compliment them on their significant 
leadership and pledging to shut down their illegal ivory 
markets, but also to find ways that we can explore cooperation 
on the continent of Africa before we completely lose our 
foothold as a main player, and that you will continue to 
advocate for our values in China and in how we both engage in 
Africa.
    Governor Branstad. I appreciate your bringing that issue 
up, and I think they have made a commitment now to stop this 
illegal trade in ivory. And I think that is critically 
important.
    Before I came back as Governor, I was president of a 
medical school. And I actually went to Africa. We have a number 
of doctors and medical people that volunteer and even our 
medial students from Des Moines University to provide health 
care in Africa. I think it is critically important that we work 
together. I will be glad to compliment them on what they are 
doing in Africa. I think we need to look at opportunities to 
collaborate wherever we can.
    I am appreciative of the Americans that donate their 
services and time to help improve drinking water and to help 
improve conditions for people in Africa.
    Senator Coons. Thank you very much for your testimony, 
Governor. I look forward to supporting your nomination.
    Governor Branstad. Thank you.
    The Chairman. Governor, I expected you to be able to talk 
fluently about pork and chicken and soybeans. I did not know 
our city fellow from Delaware could do that. So I have learned 
a lot today. [Laughter.]
    The Chairman. Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Governor, for your time today. And while 
Chris counts his chickens, I would like to end China's beef on 
U.S. beef. [Laughter.]
    Senator Gardner. Thank you.
    Governor Branstad. I am with you.
    Senator Gardner. Thank you for that. I think we are close, 
but we obviously need a little bit more help to make sure that 
this market is open freely and fairly to U.S. agriculture, 
particularly beef producers.
    You and I had great conversations about North Korea. I know 
with Mr. Young and Mr. Cardin and others, you have talked about 
North Korea and the role that China plays, the particularly 
important role that China plays as it relates to North Korea's 
nuclear behavior.
    This Congress worked to change the doctrine of strategic 
patience which had allowed the North Korean regime to 
proliferate, to launch a number of missiles, to test a number 
of nuclear weapons. And I think it is important that we look at 
the North Korea Sanctions Act that this Congress passed 
unanimously as a way forward to make sure that we are deterring 
aggression and, indeed, inducing behavior with North Korea and 
others around the region to put more pressure on the Kim Jong-
un regime to denuclearize peacefully the North Korean 
Government and North Korean regime.
    In those conversations, though, I think one thing that we 
have to consider is whether or not China is going to, in full 
faith, carry out its commitment under United Nations 
resolutions 2270 and 2321. While right now we see them taking 
actions that they have not taken in recent years. Will that 
continue or will they slip back into what China does and that 
is a policy of its own doctrine of patience as it relates to 
North Korea?
    What do you plan to do if China fails to uphold either the 
United Nations resolutions or indeed to fails to use its 
influence over North Korea's regime?
    Governor Branstad. Well, Senator Gardner, as you have 
pointed out, they have not abided by these United Nations 
resolutions. And I think what is happening right now with North 
Korea is an example of why that needs to change. This is a very 
serious situation, and I do not think China wants to have a 
flood of refugees from North Korea going into their country. I 
also think that they recognize, as other nations in Asia 
recognize, that this nuclear obsession that the leadership of 
North Korea has with guided missiles and everything is a very 
serious threat to humankind and that we need to all look at 
ways we can work together. I hope that my longtime relationship 
with the leader of China--and I can convey to him that we 
sincerely want to work with them and we want to work with other 
nations as well because this is one of the most important and 
serious threats facing us all at this time.
    Senator Gardner. Do you believe there is a role for U.S. 
secondary sanctions on Chinese entities should China fail to 
live up to its commitments?
    Governor Branstad. I think there may well be. Obviously, 
that decision will be made by the administration and by the 
leadership here in Washington, D.C. But I think just as 
recently I think the Secretary of Commerce--they recently 
levied a big fine on some Chinese entities that illegally 
provided national security information to rogue nations. And 
that was I think the largest penalty of that sort that has 
happened to date. So I am hopeful that is an indication that we 
are taking these threats real seriously and that we intend to 
hold companies, whether they are government-owned or controlled 
entities or otherwise, accountable.
    Senator Gardner. Thank you.
    And I think even when it comes to cybersecurity issues and 
cyber attacks against the United States, many of the North 
Korean efforts against U.S.-based companies have gone through 
China or traveled through China. And so we have a number of 
cyber sanctions at our disposal as well, and I would encourage 
the usage of those sanctions as necessary.
    When it comes to cybersecurity, I appreciate your statement 
when you talked about the protection of intellectual property 
rights. There is a company in Colorado who did business with 
China, sold a particular type of pump to a company in China. 
Months later, the company from China wrote back to this company 
in Colorado with an email asking some questions about the 
engineering schematics of the pump, but the new name of the 
company in China was exactly the same name as the company in 
Colorado.
    So in those conversations you are having with the Chinese 
Government, some experts believe that over 10 percent of 
China's GDP can be attributed to the theft of intellectual 
property. How will you assert both cybersecurity issues, as 
well as intellectual property rights, and make sure that they 
are living up to their obligations?
    Governor Branstad. The example you cite of the Colorado 
company--I have heard that from Iowa companies as well of where 
they have worked in cooperation with a Chinese company and then 
they see their product being exactly copied. And this is a 
clear violation of intellectual property rights. And this is 
the kind of thing that I think we have to very vigorously 
object to and do everything we can to stop. And we also need to 
convince the Chinese that with their economy, frankly this 
theft of property will also come back to bite them as well and 
that the sooner that they get serious about this, the better it 
is going to be not just for improving the relationship with the 
United States and other countries, but also for them in 
protecting their own intellectual property rights in the 
future.
    Senator Gardner. Thank you, Governor. And I know my time 
has expired, but we will continue our conversations on 
important issues like the South China Sea as well and Taiwan 
and the important relationship with our ally Taiwan.
    But I just want to end with this. I hope that this 
position, upon your confirmation--you will use it to really 
work with Congress in a way that I think has been neglected 
over the past several years, that you will have a relationship 
with members of this committee and the Congress in a way that 
really builds upon this critically important relationship with 
China and the United States. And I think there is an 
opportunity here to do things as ambassador that truly do need 
to be done between one of the most consequential relationships 
that the world has to offer. Thank you.
    Governor Branstad. Well, thank you. I intend to do that. As 
Governor, I had been co-chair at the Governors Council.
    The Chairman. We know you are going to work with us.
    Governor Branstad. Okay. Thank you. [Laughter.]
    The Chairman. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Welcome, Governor.
    You and I had a good conversation about fentanyl in my 
office. If people were dying from fentanyl across the country 
at the same rate that they are in the United States--in the 
State of Massachusetts, 75,000 people would have died from a 
fentanyl overdose in 2016. 75,000 people.
    The precursor chemicals for fentanyl come from China, and 
they come from China into Mexico for the most part and then 
they are transported up into the United States.
    So this is still relatively early in this epidemic because 
people are dying at a very small fraction right now in the 
country as they are in Massachusetts and New Hampshire and 
other States. But it is coming. It is a preview of coming 
attractions.
    So could you talk a little bit about your commitment to 
raise the profile of this issue at the very highest level to 
make sure that the Chinese Government understands that we 
expect them to crack down hard on these fentanyl exporters?
    Governor Branstad. Well, Senator Markey, for the last 2 
years, the National Governors Association has been actively 
discussing these issues. And I agree with you. This is a 
dangerous poison. Basically it is a less costly narcotic than 
heroin, and it is becoming a huge problem in many States, not 
just in your State but I think in Ohio, as well in other States 
in New England. It is going our direction as well. So we are 
concerned about it.
    If we can stop it at its source in China, we need to do 
that. And that is an issue that I intend to pursue very 
aggressively because it is human lives that are being lost 
needlessly, and this is a poison that needs to be prevented 
from going onto the world marketplace.
    Senator Markey. Thank you. And again, this has to be 
elevated to the same level as nuclear nonproliferation, 
copyright, trade. It has to be the same exact level because 
people are dying at the same level.
    Governor Branstad. There has not been enough public 
attention about this yet.
    Senator Markey. This is just absolutely a crisis in our 
country. We would be losing two Korean War levels of Americans 
every single year to fentanyl. Two Korean War levels. So we 
cannot allow that to happen. We have to put the protections in 
place. And the Chinese can be key in the same way that the 
Chinese are the key in any negotiations with North Korea.
    The President says if China is not going to solve North 
Korea, we will. Well, we have very few options beyond 
preemptive military strikes without China. And so it is going 
to require China to play a big role.
    But over the last year from the first quarter of 2016 to 
the first quarter of 2017, there has been a 37 percent increase 
in trade between North Korea and China, notwithstanding U.N. 
resolutions and their commitments to have tougher sanctions.
    So can you talk about what you believe has to be the 
conversation that goes on between the United States and China 
for them to drastically increase the implementations of the 
enforcement of the sanctions which would bring the North 
Koreans to the table? The Chinese have wanted us to have direct 
talks with the North Koreans for years. I agree with that. But 
it has to be partnered with crippling economic sanctions by 
China on the North Koreans, and that is not happening. So can 
you talk about your view of that?
    Governor Branstad. I would hope that recent events have 
convinced China that they need to take this much more 
seriously. It happens to be that the leader of North Korea's 
half brother was living in China when he was brutally murdered 
at the airport in Kuala Lumpur, Malaysia. So if nothing else is 
a signal, that sure ought to be.
    The other thing is, obviously, the threatening actions, and 
I think recently the China Daily kind of sent a message to the 
North Koreans that this nuclear mission and missiles that they 
are shooting off is counterproductive. And I hope that they 
will use that as a reason to tighten down on sanctions and get 
serious about working with us and other countries in dealing 
with this. This is a very important and critical time to deal 
with that in light of the actions of just the last few months.
    Senator Markey. Yes. We do not need a second Korean War for 
sure.
    Governor Branstad. No, we do not. We need their help. And I 
do not think they want a world with this either. They do not 
want a bunch of refugees from North Korea pouring into China. I 
have been to Harbin, which is north of North Korea. It is an 
agriculture region of China. And we need their cooperation. We 
need their assistance in peacefully dealing with this and 
changing this dangerous direction of North Korea at this time.
    Senator Markey. Thank you, Governor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    And, Governor, good to see you. Thanks for coming by to 
visit. 24 years as Governor----
    Governor Branstad. I probably will not serve out the full 
24 years if you confirm me. [Laughter.]
    Governor Branstad. Twenty-three sessions.
    Senator Portman. You are doing a great job, and you have 
shown today that you have got a grasp of what is going on over 
in China and I appreciate that. It is a tough job. You know, I 
knew Sandy Rand pretty well and was over there with him a 
number of times, and he was kind of a China expert. I know you 
are going into this with your eyes wide open.
    But despite your relationship with President Xi going back 
to his days as head of a livestock association, they are tough 
negotiators. When I was U.S. Trade Representative, I had the 
opportunity to negotiate with them quite a bit. We do have a 
better relationship now at the presidential level I believe 
than we have had in a long time. But we have got so many 
issues.
    I was over there on a congressional delegation a couple 
weeks ago and had the opportunity to meet with Premier Li, as 
well as Chairman of the National People's Congress Jong, and 
talked about the issues that have been raised today, including 
North Korea, including the South China Sea, including a level 
playing field on trade, IP, intellectual property issues, as 
well as their overcapacity and their dumping in the United 
States.
    We also talked about an issue that my colleague from 
Massachusetts, Ed Markey, just raised which is fentanyl. And 
one point I made to them is there is information that fentanyl 
is also leaking into their society. In other words, it is not 
just a question of stopping the laboratories in China where 
some evil scientist is creating poison that is coming into our 
communities.
    And by the way, the new push is directly fentanyl, 90 
percent pure, being mailed to America to Des Moines and to 
Cincinnati and to Columbus, and it comes by the mail and people 
are ordering it over the Web.
    It is killing more people this year by far than it killed 
last year. So this is getting worse, not better. And 
Massachusetts has been hit hard. So has Ohio. But I really 
believe from talking to experts around the country this is the 
new wave. It is a synthetic form of heroin, as you know. But it 
is 30 to 50 times more powerful than heroin. And not only are 
there more overdoses, but there are more deaths as a percent of 
every overdose because it is so deadly.
    So they have a responsibility to work with us on this. We 
need to do more here obviously on the demand side, and we need 
to do more in terms of stopping it through the mail, which many 
members of this committee are on our legislation called the 
STOP Act. But I would like today to hear from you on this just 
to assure us that you are going to press on this issue.
    They have 170,000 chemical plants in China, and these are 
legitimate plants. I understand that. But they got a lot of 
pharmaceutical and chemical plants that are illegitimate. And 
with their control over their economy, I believe they can do 
much more to be able to stop this poison from coming into our 
country. And again, as you said with regard to intellectual 
property--and this relates to some of the other issues, 
including Korea--they should have an interest in this.
    So could you just confirm to us today that you will press 
on this issue and specifically talk to them about not just 
shutting down some of these plants, which they have to do, but 
actually make sure they schedule more of these precursors so 
that they become illegal and that they do more to shut down the 
fentanyl production in China?
    Governor Branstad. Senator, I want to do everything I can 
to work with you and Senator Markey and others that are very 
concerned about this issue. I think it is really a life and 
death issue. I also think, in addition to shutting down the 
plants, they need to punish the people that are doing this. And 
I want to press that because it is such an important thing to 
saving human lives and preventing this poison from--and as you 
say, it is a danger in their country as well. We know it is a 
very severe, growing danger here, but it is something that has 
no place. And I want to do everything I can. I will be looking 
for advice and counsel on what can be the most effective way.
    But I am not bashful about bringing up tough issues in 
negotiations. You have had great experience in negotiating 
trade deals, and I, at a much lower level, have worked on that 
for decades. But this is an issue that really comes to 
protecting human life. And it is something that we have got to 
take very seriously, and I intend to raise this as a top issue, 
along with the others that we have talked about here today.
    Senator Portman. Well, thanks for that commitment.
    By the way, most of it is coming from China according to 
the experts. So this is obviously that they can be much more 
responsible about.
    With regard to trade, there are so many issues. Let me just 
touch on one quickly. Back in 2000, Chinese production of steel 
was roughly the same as the United States, and that is 100 
million tons a year. Since 2000, they have gone to 1.2 billion 
tons per year of steel production. So a net importer of steel 
became the biggest exporter of steel in the world. And in that 
process through this overcapacity that they have developed, 
they have been selling steel below its cost in the United 
States of America. It is one of the reasons we have lost over 
12,000 steel jobs here in this country during that time period. 
12,000. And I raised it with them, of course, when I was over 
there.
    More importantly, I think we need to have an ambassador who 
understands this issue and will be sure that with regard to 
their dumping or their subsidization, which is also going on, 
they understand that we are not going to put up with it 
anymore. There is an absolute necessity to have trade that is 
level. And as you said, I have negotiated with them in the past 
on trade. You know, this is one of their responsibilities as a 
member of the WTO and a responsible, mature trading partner 
now, obviously.
    So any thoughts quickly on steel and the dumping of steel 
and your commitment to press on that issue?
    Governor Branstad. Back in 1993, I helped to track a steel 
company to Iowa called IPSCO Steel from Canada. And they have 
been sold to SSAB. And I have been working with SSAB. I have 
been active among the Governors on pressing for action on 
dealing with the dumping issue and the unfair competition in 
steel. So this is a critical issue, one that I am familiar with 
because we have got a company SSAB in Montpelier, Iowa between 
Davenport and Muscatine that has been negatively affected by 
this. So I want to do everything I can to make sure that we 
stop the unfair and illegal activities that we have seen from 
China in the steel industry.
    Senator Portman. Thank you, Governor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I do want to highlight that I doubt there is any country in 
the world with which we have so many issues. It is most 
important for our two countries to manage the relationship 
properly. But I am uplifted by the fact that you have had so 
many personal experiences with many of these issues as a 
Governor, and you know how important they are to rural people. 
All of us have had family or friends who have died, I am sure, 
from fentanyl. We know of the job losses that have taken place. 
We know of the outright theft. I mean, it is just like going 
and robbing a bank directly with what they do with intellectual 
property. And I do hope with the relationship you have, you 
will be a constant force for dealing with the multiple 
violations of international norms that take place with China.
    Governor Branstad. Well, Senator, I appreciate your counsel 
on this important issue. This is one thing about being the 
chief executive, being the Governor. The buck stops with you. I 
was Governor during the farm crisis in the 1980s. I have gone 
on trade missions all over the world. I have dealt with a lot 
of issues. And I think that background and experience is going 
to be helpful to me in this role. I know I have a lot to learn 
about foreign policy on a lot of these issues, and I have been 
trying to get up to speed as best I can.
    But I am not bashful about bringing these issues up. And 
just the fact that the leader of China calls us an old friend 
does not mean that I am going to be at all reluctant or bashful 
about bringing up issues where we think they have not been fair 
and where Americans or anybody has been treated unfairly, be it 
human rights or intellectual property rights.
    The Chairman. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Governor, thank you for your service and congratulations on 
your nomination.
    Governor Branstad. Thank you.
    Senator Menendez. China is probably one of the most complex 
posts that anybody could ever be offered.
    So I am still in the process of trying to understand the 
President's world view and understand how he determines 
alliances and partnerships. So since obviously you have had 
some discussion with him about this role, do you believe China 
is an adversary or an ally of the United States?
    Governor Branstad. That is a tough question. I think both 
are potential. But I think we need to do everything we can to 
try to make them an ally, and we need to look at ways that we 
can work together.
    I know from the food perspective, the Chinese are very 
concerned about food security, and they have had some real 
issues on food security. And I have been in China and talked to 
them about how we--our country--that are blessed with a safe, 
secure food supply--and it is not only great quality, but it is 
among the cheapest in the world. --
    Senator Menendez. So our aspiration is for them to be an 
ally. But if you were to describe our relationship with them 
now, what would you say that is?
    Governor Branstad. It is mixed. I think that there are a 
lot of areas of--but I think we have got to always strive to 
try to break the barriers. I was one of the first Governors to 
go there after they began to open up and move to a more market-
driven economy. And I think what I want to do is try to stress 
on them because of the change that has taken place over the 
last 30-some years, they have benefited greatly. But they also 
have an obligation as a growing power now to also play by the 
rules and do the things that are expected of countries that are 
world leaders.
    Senator Menendez. I appreciate that.
    Now, for months, before taking office, the President 
excoriated China for manipulating its currency to the detriment 
of American workers, insisting that he would put American 
workers and the labor force first. But things seem to have 
changed. Can you clarify for me? Do you believe that China 
manipulated its currency in the past?
    Governor Branstad. I think they have. I think that has 
changed somewhat in recent months or in the last year or so. 
But I think that is obviously a great concern because if they 
are able to manipulate their currency and make their goods 
cheaper to export and ours more expensive to import, that is 
one of the challenges that we are facing. So, yes, that is an 
issue that we need to continue to monitor, and that is one of 
many things that I think we need to continue to be vigilant in 
terms of reviewing the situation and seeing if indeed that has 
changed or not.
    Senator Menendez. Well, I appreciate your directness on 
that because I too believe they have been a currency 
manipulator. They are not right now. And the question is how do 
we avoid them--get them to understand that that is not a good 
proposition for China or certainly for the United States and 
workers. So I hope that you will spend some time and attention 
to that as you unfold your issues there.
    I am concerned, as is the President, about North Korea, and 
some of my colleagues have talked about that. But despite some 
strong rhetoric from China because of its deep economic ties 
and its border, China from my perspective continues to enable 
North Korea's leaders to pursue destabilizing nuclear weapons.
    So the question is we seem to have a lot of hope in 
President Xi as it relates to helping us with North Korea, and 
I do hope that that unfolds. But the question is, if it does 
not, should we not consider giving China greater consequences 
so that they understand their calculus is wrong? For example, 
the sanctions that Senator Gardner and I authored would permit 
sanctions against Chinese banks for which North Korea operates 
a great deal. Should we not consider that as a possibility if 
we cannot get China to do diplomatically what we hope for them 
to do in North Korea to change their calculus?
    Governor Branstad. I think we should keep all these options 
open. Obviously, as ambassador, I will not be decision-maker on 
them.
    Senator Menendez. You will be a key adviser to the 
President.
    Governor Branstad. Well, that is right. And I will not 
hesitate to give my advice and what I am able to learn on the 
ground over there. And I do think all options should be open 
and that we ought to do everything we can to convince them to 
be much more aggressive in dealing with the threats from North 
Korea. If that does not happen, then I think we need to look at 
what can we do to try to apply more pressure to convince them 
that it is in their interests, and there will be consequences 
if they do not.
    Senator Menendez. I appreciate that.
    Finally, as the co-chair of the Taiwan Caucus with Senator 
Inhofe, I do hope that we will continue to promote the Taiwan 
Relations Act as the law of the land, as the essence of our 
relationship with Taiwan. I understand the One China policy, 
but Taiwan is also very important to us, and I hope that you 
will keep the perspective of the Taiwan Relations Act as a 
focus in your engagement with China as it relates to Taiwan.
    Governor Branstad. Senator Menendez, I want to assure you I 
will. I also have been to Taiwan. The State of Iowa does have a 
sister state with Taiwan. And I recognize the importance of 
both the One China policy but of also supporting and enforcing 
the Taiwan Relations Act.
    Senator Menendez. Thank you. I appreciate your directness.
    Governor Branstad. Thank you.
    The Chairman. Thank you.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Governor, congratulations on the nomination. Thanks for 
coming to visit with me in my office. I saw you right before 
the break, and I was heading to China and wanted to just tell 
you that people are looking forward to you as our ambassador.
    Governor Branstad. Well, the Chinese people have been very 
nice to me and have taken a lot of pictures of me for what that 
is worth. [Laughter.]
    Governor Branstad. But I would be interested in finding out 
how your trip went. And I think you were intending to go to 
Tibet as well?
    Senator Barrasso. As well, yes. It was very productive, 
very fruitful, talked about some of the issues that have just 
been raised but also issues of trade. Senator Portman, who is 
our former U.S. Trade Rep, brought up a number of issues. I 
brought up a number as well.
    One was on soda ash. Many U.S. industries experience a wide 
variety of concerns surrounding China's trade policies and 
practices. As we have discussed in this committee, soda ash 
continues to face unfair trade practices from China, from other 
countries. The United States is the most competitive supplier 
of soda ash in the world due to the abundance of a raw material 
called trona in the United States. And Wyoming, specifically 
the Green River Basin, is the world's largest area for 
naturally occurring trona. So soda ash is a key manufacturing 
component of glass, detergents, soaps, chemicals. China is 
seeking to capture the global market share from the United 
States soda ash producers, and they do it through unfair trade 
practices. China has given its own synthetic soda ash producers 
a significant rebate on the China's value-added tax.
    So if confirmed, will you continue to work to highlight and 
eliminate market distorting subsidies like the value-added tax 
rebate on soda ash exports that harm U.S. workers and U.S. 
producers?
    Governor Branstad. The answer is yes. I look at this very 
much like the steel issue where they are being unfair and where 
they are providing unfair subsidies. This is the kind of thing 
that we have to strenuously object to and do everything we can 
to try to correct.
    Senator Barrasso. I appreciate it. And we did raise it with 
the Premier when we were there in Beijing.
    And then with regard to beef--and I know Senator Gardner 
asked a bit about that--the United States produces the highest 
quality beef in the world. While China lifted its ban on U.S. 
beef last September, some technical barriers have prevented the 
U.S. beef from actually gaining access to the Chinese market.
    In April, I signed a letter on this critical issue to 
President Trump, along with 38 other Senators, including 
members of this committee, bipartisan members of this 
committee. Senator Kaine signed it, as well as Senators Risch 
and Gardner and Young and Paul and Portman. The letter urged 
the administration to discuss opening the Chinese market to 
U.S. beef with the President of China during his visit to the 
United States. And it is vital that we work to ensure that U.S. 
beef is traded fairly and trade barriers are eliminated there 
as well.
    Governor Branstad. I agree wholeheartedly. I want to be 
able to serve beef, American beef, specifically Iowa premium 
beef--[Laughter.]
    Governor Branstad:--at the embassy and at the ambassador's 
residence. I do not think it is fair that right now we have to 
serve Australian beef or Argentinean beef.
    And this issue goes back to mad cow disease 13 years ago. 
And as you have said, they have announced they are going to do 
it, but it has still not been done. And that is one of the 
areas that I feel very strongly about. In fact, the trade 
mission I went on in November to both China and Japan, we did 
have a great press conference and beef tasting in Tokyo. I was 
on the early stages of opening that Japanese market many years 
ago to American beef. And that now is really flourishing, and 
we need the same access in China. Mad cow disease has not been 
in this country for, I think, 13 years. And besides that, the 
mad cow came from Canada.
    Senator Barrasso. One final question and it has to do with 
human rights and economic issues, Governor. China is the United 
States' largest trading partner, in terms of great potential 
economic opportunities for businesses in the United States, but 
China continues to engage in what I believe are serious human 
rights abuses, including political and religious repression. So 
as Ambassador to China, can you just spend a little bit of time 
discussing how you are going to balance engaging China on the 
economic front while also demonstrating our Nation's concerns 
about China's human rights violations?
    Governor Branstad. We are a Nation that has always stood 
for human rights for all people in the world, and I think it is 
critically important the Ambassador for the United States of 
America make that point and make that along with the other 
issues that we deal with in China. I am Catholic. I want to go 
to a Catholic church in China. I respect other people's 
religions as well, and I do not think religious people should 
be persecuted. So I think it is very important that we protect 
all human rights, including freedom of speech and freedom of 
religion.
    Senator Barrasso. Thank you very much, Governor.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I reserved some time on the front end. I did not ask any 
questions.
    I was just thinking about all the myriad of questions you 
have been asked about China that affect all of our lives on a 
daily basis. But between human rights violations, non-freedom 
of press, what they do with U.S. journalists and others, the 
monopoly laws they have there which are intended to hurt U.S. 
companies--and they do--the national security laws that do the 
same, the cyber theft that we have hit on several times, 
violation of international norms in the South China Sea, 
redrawing thousands of years of history there, their knowingly 
not complying with the U.N. Security Council resolutions on 
North Korea, allowing companies to violate that and doing so 
themselves, the dumping that takes place with China's 
manufactured goods, the subsidizing that takes place, if that 
is not occurring, and just what we talked about with fentanyl 
and other kinds of things--can you share with us some things 
that give you hope about the Premier's sincerity, if you will, 
in really wanting to reform the country so that it comes into 
more universal and international norms? I mean, what are the 
things that give you hope of China's willingness to actually do 
so? And additionally, in Africa and in other places, they 
basically cause countries there to be debt-laden by doing 
things with all Chinese workers that solely benefit China, 
please give me some optimism based on your relationship.
    Governor Branstad. Well, my relationship goes way back to 
1983 and 1984. Here is the thing. China, as you know, is a very 
closed communist system. It started when Henry Kissinger and 
then President Nixon went there and it began to open up. My 
predecessor, Robert Ray, went to China and kind of laid the 
groundwork. I signed the sister state. I went there in 1984. I 
have seen a big change. And we were hopeful that when they 
adopted these economic reforms, it would lead to more political 
reforms.
    I think our disappointment in recent years is--and frankly 
my disappointment since President Xi became the leader of 
China--and he has done some things to crack down on corruption 
and to try to clean up some of the bad practices of some of the 
members of his party. But he has not done what I had hoped 
would happen and that is become more open and more willing to 
accept freedom of press and stop the repression of minorities. 
Those are the kind of issues that I hope to bring up with him.
    We go back a long ways. We are considered old friends. But 
I think he has got to recognize that some of the things that 
are being done in China today are very much against what I 
think is the right policies for a world leader. And I think he 
aspires to be a great leader for his country, but I want to--as 
an old friend, I would tell him where I think they are falling 
short and the kind of things that need to be addressed, 
including these human rights, intellectual property rights, and 
other things. So I hope that I can be an effective spokesman 
for America and for challenging some of the policies that we 
think are really going in the wrong direction.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. That was a good 
question. I have been wondering the same thing.
    And I appreciate, Governor Branstad, your service, and I am 
very happy to support you in this position. As we described, I 
have got good Democratic friends in Iowa that give you high 
marks, at least as high as they are going to give somebody on 
the other side of the aisle.
    Governor Branstad. Well, they keep reelecting me.
    Senator Kaine. And I am struck by that too. You know, I 
come from the only State where they just give you one term. I 
am the only State where they call the Governor Your 
Excellency.'' So they talk about you nice, but they want you to 
leave pretty quickly. [Laughter.]
    Senator Kaine. So 22 years is remarkable.
    And you have had a pretty amazing track record. As I think 
about Iowa from having visited my friends, there are many 
things that I think about, but the thing I think about the 
most--ag and forestry is the number one part of the Virginia 
economy, and you guys lead with that.
    What you have done over the years of your tenure with 
others to improve the lot of family farms through the creation 
of alternative energy options for farmers so that together with 
farming for food, they could grow corn and use it to produce 
ethanol or have a wind tower that they could use to supplement 
income, I mean, I would just love to hear from 1983 to today, 
that has just been revolutionary.
    Governor Branstad. Well, thank you for bringing that up 
because I am very proud of where we have come from. In 1983, we 
were almost totally dependent on imported energy, fuel, oil 
that came from the Middle East, and most of our electricity was 
generated by coal. Today Iowa leads the Nation. And my very 
first year as Governor, we signed a renewable electric 
portfolio law that has been copied, I think, by 23 other 
States, and we now produce 35.8 percent of our electricity by 
wind. We have two big projects that have been announced. Mid-
American Energy is investing another $3.6 billion in wind 
turbines, and Alliant--those are our two big utilities--another 
billion dollars. We will be over 40 percent--the first State to 
do that--by the year 2020.
    And, of course, we lead the Nation in ethanol. We produce 
more ethanol than we consume in gasoline. We are moving from 
E10 to E15. We also have a number of E85 pumps in the State. We 
also lead the Nation in biodiesel.
    Senator Kaine. But not corn-based biodiesel.
    Governor Branstad. Soybean-based biodiesel. It is almost 
all from soybeans. Some of it comes from animal fat. But it is 
either animal fat or soybeans.
    Senator Kaine. If there is one place in the United States 
that demonstrates that fighting greenhouse gas emissions and 
promoting economic growth are not inconsistent goals, it is 
Iowa.
    Governor Branstad. And it has created a lot of jobs, and it 
has also created income, as you mentioned, for farmers. So this 
is another alternative to farmers. If you have a wind turbine 
on your farm, that generates income. It also generates property 
tax for that local government.
    Senator Kaine. I was looking at the website for the Iowa 
Corn Growers Association, and they talk about the four E's. 
They talk about economy, environment, energy security, without 
sacrificing engine performance.
    Governor Branstad. The new high performance engines--they 
should use 30 or 40 percent ethanol. And we can clearly produce 
enough corn to do that and still keep the price of food 
relatively low.
    Senator Kaine. Then here is an area of hope that I see, 
kind of to follow up on Senator Corker's question. And the 
United States and China are the largest emitters of greenhouse 
gas in the world, and they were the first two nations to sign 
the Paris Climate Accord. And as Governor of Iowa, you go there 
with a story. They are dealing with major environmental 
challenges. You go there with a story which is we can battle 
greenhouse gas and do it in a way that does not hobble the 
economy. If we are smart, if we are careful, if we are 
strategic about it, we can do it in a way that is good for the 
environment and good for the economy.
    The one thing I would just ask--and this is kind of in line 
with some of your earlier testimony. This is not your decision 
to make, but it would be your advice to give. I think it would 
be a massive mistake for the United States to pull out of the 
Paris Climate Accord. The U.S. and China were first in, and 
they are setting leadership for the rest of the world. And if 
the U.S. were to pull out of it, the effect on the world, the 
effect on what China might do I think could be significant. And 
you are the best person in the United States with a story to 
tell about how you can battle greenhouse gas emissions and also 
promote the environment at the same time.
    The Iowa Corn Growers Association website lists how ethanol 
was so much better with respect to both greenhouse gas 
emissions and use of water than production of gasoline. You are 
an ambassador of the United States to China, but I also think 
you can be an ambassador for the clean energy economy of 
tomorrow to the Nation and the world that most needs that 
advice right now.
    Governor Branstad. Well, Senator Kaine, thank you for your 
advice. My oldest son Eric actually chaired the bipartisan 
Renewable Energy Coalition that worked with all the candidates 
of both parties before the Iowa caucuses to educate them on 
renewable energy. In fact, he brought then candidate Trump to 
one of the ethanol plants at Gowrie, Iowa. And we got 
tremendous response from both parties and I think did a lot to 
educate the presidential candidates on the importance of 
renewable energy.
    So I think we still have more work to do especially on wind 
energy. When candidate Trump came to the Iowa State Fair, I 
pointed out we have a wind turbine right there at the Iowa 
State Fair. Also, Secretary Perry, who is the former Governor 
of Texas--they are also a big wind energy State.
    Senator Kaine. Absolutely. They had the renewable energy 
portfolio early.
    Governor Branstad. That is right.
    Senator Kaine. When President Bush was Governor.
    Governor Branstad. They followed our lead. They are one of 
the, I think, 23 States that copied basically a law I signed in 
1983. So I agree with you.
    Also, I would say there is a company called HZ. It is a 
Chinese company that has a couple of wind turbines near Nevada, 
Iowa. They are a subsidiary of Chem China. I have called on 
them, and frankly we think there is, as you pointed out, 
opportunity for collaboration on this in a way that can benefit 
air quality and the whole world.
    Senator Kaine. Excellent. I look forward to working with 
you. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Senator Rubio?
    Senator Rubio. Thank you.
    Thank you, Governor. Congratulations.
    As you know, I spent some time in Iowa over the last year 
and a half, and we too went to the fair and my kids enjoyed it 
very much. They wanted to know why we did not go this year. 
[Laughter.]
    Governor Branstad. You are always welcome. [Laughter.]
    Senator Rubio. Well, I asked them what did you learn at the 
fair, and the one thing that one of my kids said is we learned 
that you can fry anything. [Laughter.]
    Governor Branstad. Even butter. [Laughter.]
    Senator Rubio. So anyway, I appreciate it.
    And I appreciate your acknowledgement today that an 
economic opening towards a totalitarian state in and of itself 
will not guarantee a political opening. It will allow them to 
control the pace and the scope of that opening for economic 
purposes, but it does not translate to political opening. I 
think China is a perfect example of it.
    As I shared with you, I think this is the most--you know, 
when they write the book about the 21st century, there will be 
a chapter in there about Russia. There will be a chapter or two 
there about Islamic terrorism. But I think that book is going 
to be dominated by chapter after chapter documenting the 
relationship between the United States and China. And how that 
relationship goes in very many ways is going to determine the 
direction of the 21st century.
    There is a sense I think among the Chinese people and many 
in their government that our goal is to contain them or to keep 
them down. And that certainly is not the case. On the contrary, 
I think we would love to have a partner on the global stage of 
their scope and magnitude to confront some of these challenges 
that we face. What we are not going to do, I believe--and it is 
important to communicate this--is we are not going to accept 
some sort of sphere of influence where they dominate the region 
at the expense of our allies and alliances in the region.
    And we are also going to continue to raise the human rights 
issue because it does play out, as we have seen in 
international forums. China is a consistent vetoer of anything 
at the Security Council that takes on the issue of human 
rights. And I think that reflects the way that government 
operates at home. And it is always important to have a 
distinction between the Chinese Communist Party and the Chinese 
people. They are not the same thing.
    One of the things that we have talked about--what is very 
important both in their culture and in their politics--is the 
ability to save face, in essence, to not be publicly 
embarrassed on a topic. And therefore, as you have expressed 
and others, the best way to raise issues with the Russian 
leadership is in a private forum.
    And I would ask, given your time and interaction with the 
current President of China, can you tell us of any instance 
where you raised a difficult issue or pressed him on something, 
on an issue that perhaps was not aligned with the interests of 
the Chinese Communist Party. Is there such an instance that you 
know where you raised an issue?
    Governor Branstad. That is a good question. And I think 
your observation is absolutely right on about how we need to 
try to find ways to partner with them.
    Obviously, my role as Governor is different than my role is 
going to be as ambassador. As Governor, I was not as aggressive 
at bringing up the human rights issues and things like that 
because I felt----
    Senator Rubio. You were dealing with economic issues.
    Governor Branstad [continuing]. Yes. It was economic 
issues.
    But certainly we made great progress over the years in 
opening China for things like soybeans. I mean, we are at the 
point where last year--when my staff told me it was 48 percent 
of our soybeans went to China--it had been one-third that had 
gone to China, and now it is up to 48 percent last year. But 
there are also things that have gone the other way. DDGs, which 
is a byproduct from ethanol--they have now put a tariff on that 
that has really dramatically reduced our exports of that. So I 
have seen areas where we have made progress. I have also seen 
areas where we have lost ground.
    I think I just have to be vigilant in going after those 
things where we think they are being unfair.
    I think there have been some good things that Xi Jinping 
has done to crack down on corruption within his own party and 
his own government. Some people say, well, part of that is just 
about getting rid of his enemies. But I think some of it has 
really been about addressing the severe problem they do have 
with corruption.
    Senator Rubio. And, Governor, I guess my point, because my 
time is about to expire, is there is no shortage of human 
rights abuses. You mentioned your Catholic faith as I have as 
well. Bishop Su, an 85-year-old Catholic bishop who has 
disappeared and we presume imprisoned by the Government there.
    What I hope to acquire from you today is a commitment that 
on these cases, whether it is publicly or privately, that these 
are issues that you will raise with the Government of China, 
whether it is an American or some other case, because this is 
really important for the human rights community to feel like 
their Ambassador to China is someone who is going to raise 
these issues even if it makes our host, in this case the 
Chinese Communist Party, uncomfortable.
    And in light of that, to meet with them in China when they 
are willing to meet with you, the willingness to meet with some 
of their exiles that are here in the United States to hear 
their concerns, this is a very important commitment. It is a 
very important part of this job, and I think it is really 
important for those interested in human rights globally and in 
China to know that they are going to have an ambassador willing 
to raise these issues both in those private forums and meet 
with them publicly as opposed to allow them to be marginalized.
    Governor Branstad. Well, I will do that. Just to assure 
you, my first trip to the old Soviet Union was in 1986. It was 
just shortly after Chernobyl. And I actually smuggled Natan 
Sharansky's book in to the American embassy to give to his 
mother.
    My wife and I met with a group of refuseniks. I am sure 
that the woman that they had as our escort, the Soviet person, 
was a KGB agent. We slipped out of her presence, and we met 
with a group of refuseniks to find out what was really 
happening in what was called Leningrad at the time, now St. 
Petersburg.
    So I am not bashful about meeting with dissidents or people 
that feel they are being discriminated or treated unfairly. I 
have a history of being willing to do that in my previous role. 
As ambassador, I think it is even more important because of our 
country's commitment to human rights. And I look forward to 
working with you and ideas that you and others have about 
people that are not being treated fairly and being able to at 
least bring those issues up in a private setting because, as 
you said, saving face is important in their culture. But it is 
also I think important that we confront them with those areas 
where we feel that they are not abiding by basic human dignity.
    The Chairman. Senator Cardin?
    Senator Cardin. Well, Governor, first I want to applaud 
your participation here today. You have done very well in 
giving us the confidence of your knowledge of the areas and the 
way that you go about trying to reach strategic decisions as to 
how to advance U.S. interests. So I thank you for that.
    I want to put a dose of reality on North Korea for one 
moment because I am concerned with some of the exchanges not 
necessarily your response but the realities of the 
circumstances in North Korea as it relates to American values 
and as it relates to North Korea's continued desire to violate 
international commitments on nuclear proliferation and missile 
proliferation.
    The challenge is that there really is not a military option 
for a first strike by the United States. Unlike the 
circumstances we found in Iran with their nuclear 
proliferation, a military option would have been terrible but 
it was doable. In North Korea, a military option would involve 
the risks of millions of lives. That is the reality. So we 
really are faced with changing the calculation in North Korea 
so that they take action to eliminate this threat, which 
requires China.
    So that then brings us to the point that China and the 
United States have some common interests. China does not want 
to see this blow up as you point out. They do not want all 
those immigrants or migrants coming in from North Korea. That 
is absolutely correct. But they also do not want to see a 
democratic country on their border. North Korea looks at 
nuclear weapons as their ability for maintaining their regime 
because it would be difficult for us to take them out.
    So how do you deal with China that is not interested in 
bringing down the North Korean regime, wants to maintain a 
communist country on their border? How do we work with them and 
the fear that they have that America's interest is to try to 
bring down the North Korean regime? How do you balance all that 
and get North Korea to understand that they can maintain their 
regime security without nuclear weapons?
    Governor Branstad. That is a very perceptive question that 
you have asked, Senator Cardin. And that is right. There is no 
way that China is going to want to see a regime change that has 
a democratic united Korea under South Korean rule on their 
border.
    By the same token, I think we also recognize that Seoul is 
very close. I mean, I have been to Seoul several times, South 
Korea. I have been to the DMZ. There is, I think, 20 million 
people in Seoul whose lives are in jeopardy if we were to try 
to attack North Korea. That is certainly not something we want 
to put those people's lives in jeopardy.
    So that is why working with the Chinese and convincing the 
Chinese that they are the ones that have the potential to 
really influence the regime in North Korea more than anyone 
else and that the change that needs to take place there does 
not need to be a threat to the system, but needs to stop this 
nuclear proliferation and the building of a guidance system for 
missiles to attack the United States and Japan and other 
countries in the world.
    It is probably the most pressing issue that we have right 
now. And I want to do whatever I can to try to be a go-between 
between our two countries that can help convince the leadership 
in China that it is in their interest and our interest to work 
together to stop this dangerous direction that is coming out of 
North Korea. Their leadership is critically important to doing 
that, and it needs to be done in a way that they do not feel it 
threatens them but also that it will provide security to the 
other nations in that part of the world.
    Senator Cardin. We want to give you the strongest possible 
hand in making that case. So please feel comfortable to give us 
advice as to how the Congress can weigh in to make your case 
the strongest possible for China to help us in changing the 
calculations in North Korea.
    Governor Branstad. I want to do anything and everything 
that I can. I am open to listening to suggestions or ideas that 
any member of this committee or any Member of the Senate has. I 
want to work closely with the administration and everybody 
else. But I see this as probably the biggest challenge that I 
have ever had in my entire life, and I want to do anything and 
everything that I can to try to find an acceptable solution for 
the benefit of the entire human race.
    Senator Cardin. Thank you.
    The Chairman. Just to follow up before we close out, I 
think most people believe that no amount of economic pressure--
no amount of economic pressure--will keep North Korea from 
developing a deliverable nuclear weapon to the United States. 
Kim Jong-un views that as his ticket to die as an old man in 
his bed down the road, his ticket to not being taken out. So it 
is a strategy that most people believe has problems because of 
a strong desire to have the weapon.
    But at the same time, China's lack of willingness to play 
the role that has to be played has got to change. At least we 
have to attempt as a world community to put severe economic 
pressures on his country to stop it. I do hope that China is 
willing to step up to that. I think they do a lot of head fakes 
and act as if they are going to do things and then never follow 
through. But I do think something severe is going to happen in 
the region if they do not. And I think it is totally dependent 
upon them.
    We would love to work with you. You know, the 
administration is trying to do what they can to bring the world 
community in to help bear pressure to raise the level of 
concern and awareness. But I do hope that you will work with us 
in whatever way you deem appropriate to help bring pressure to 
bear. I do hope that the pendulum has swung and that China now 
views North Korea as a liability and not an asset. I hope that 
you are going to do everything you can to ensure that that is 
the case.
    But I do believe that from the standpoint of global 
encounters that can get out of control and millions of people 
be ravaged in the process, this is the one that is most evident 
to us today. So I hope none of that happens. I hope as a world 
community, we will come together. But I do think that in many 
ways is your most important responsibility as you take on this 
post.
    You have had an outstanding hearing. I think your on-the-
ground experiences with China will serve our Nation well. I 
think your understanding of what drives the thinking within 
China will serve our Nation well. I thank you for your 
willingness to give up a very comfortable place--apparently 
issues of reelection are not a problem. [Laughter.]
    The Chairman. And go to a post that is much more temporary 
and yet in many ways far more meaningful from the standpoint of 
our security and the world's security. So thank you.
    We will leave the record open until the close of business 
Thursday. I am sure you will want to answer those questions 
promptly and will.
    Governor Branstad. Will do.
    Senator Cardin. I thank your family for their willingness 
for you to be so far away for so many years.
    And we look forward to your confirmation and working with 
you. Thank you so much.
    Governor Branstad. Well, thank you, Chairman Corker, 
Ranking Member Cardin, all the members of your committee. It 
has been an honor and a privilege to get the benefit of your 
counsel and advice, and I look forward to continuing to work 
with you, if I get the confirmation and the opportunity to 
serve our country as the Ambassador to China. Thank you very 
much.
    The Chairman. Thank you.
    The meeting is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
        Submitted to Hon. Terry Branstad by Senator Marco Rubio

    Question 1. Will you commit to periodically appearing at hearings 
of the Congressional-Executive Commission on China? Will you commit to 
encouraging administration officials who serve as executive branch 
commissioners to attend CECC hearings?

    Answer. The Congressional-Executive Commission on China serves as a 
valuable platform for experts, activists, and civil society leaders to 
provide unfiltered information on China's human rights environment. If 
confirmed, I look forward to engaging with the CECC, and invite its 
members to travel to China to investigate conditions on the ground.

    Question 2. Will you commit to urging all visiting Cabinet members 
and Members of Congress to raise individual human rights cases or 
issues in China-with specific and meaningful asks-with their Chinese 
counterparts?

    Answer. Yes. If confirmed as ambassador, I will work tirelessly to 
press the Chinese Government on human rights cases and will encourage 
others to do so as well.

    Question 3. Will you commit to meeting monthly or quarterly with 
civil society groups in China to show support for their work? Will you 
also push back on the Chinese Government's efforts to limit U.S. 
Government contact with these civil society groups and will you 
challenge senior Chinese leaders and parts of the security apparatus, 
particularly China's Public Security Bureau (PSB), on the harassment or 
denied registration of U.S.-based NGOs?

    Answer. As I said during my hearing I hope not only to meet with 
civil society while in Beijing, but also as I travel throughout China.

    Question 4. Will you commit to meeting in the United States with 
exiled dissidents and exiled critics of the Chinese Government who 
cannot travel to China to ensure you have fullest possible perspective 
on both the human rights situation in China, and on what the U.S. 
Government can do to effect positive change? If confirmed, will you 
commit to having the first of such meetings prior to departing for 
post?

    Answer. If confirmed, I am committed to supporting and meeting with 
civil society organizations and rights activists both in the United 
States and China.

    Question 5. Will you commit to using existing authority in the 
International Religious Freedom Act to communicate to U.S. State 
Department the names of Chinese Government officials who are involved 
and complicit in egregious violations of religious freedom, and who 
should also be denied entry to the U.S. given that China has been 
designated a Country of Particular Concern since 1999?

    Answer. If confirmed, I will commit to raising our serious concerns 
over China's repression of religious freedom. I will remain in close 
contact with relevant bureaus in the State Department on this important 
issue and I appreciate Congress having provided the tools in the 
International Religious Freedom Act to use, as appropriate, in order to 
promote religious freedom for all in China.

    Question 6. Will you commit to robust engagement on implementation 
of the Global Magnitsky Act? Specifically, if confirmed, would you 
dedicate embassy staff resources to compiling names and information 
regarding Chinese Government officials who should be denied visas under 
the Global Magnitsky Act as a result of their involvement in grave 
human rights violations?

    Answer. If confirmed, I will ensure that embassy and consular staff 
devote adequate resources and take appropriate action to implement the 
Act.

    Question 7. Will you commit to visibly marking the Tiananmen 
anniversary each year, using the occasion to assess the human rights 
situation in China and reminding the authorities of the need for 
accountability for abuses committed in 1989?

    Answer. If confirmed, I will ensure we do not fail to commemorate 
the Tiananmen anniversary.

    Question 8. Earlier this year, I met the wives of Jiang Tianyong 
and Tang Jingling, two human rights lawyers who were disbarred for 
their work to defend human rights, and who are now being unjustly held 
by Chinese authorities. In the case of Mr. Jiang, his exact whereabouts 
remain unknown. The wives of Mr. Jiang and Mr. Tang have asked U.S. 
officials to raise the cases of their husbands with the Chinese 
Government the cases of their husbands in the hopes that they can see 
them again. I've publicly urged Secretary of State Rex Tillerson to 
advocate on their behalf. Would you be willing to meet with the wives 
of these two men? Do you commit to raising their cases at the highest 
levels of the Chinese Government?

    Answer. Yes. If confirmed, I commit to raising human rights cases 
and issues regularly with senior Chinese officials. I also commit to 
meeting with the family members of activists. I am troubled by the 
human rights environment in China, including the crackdown on lawyers 
such as Jiang Tianyong and Tang Jingling, and the harassment of their 
family members.

    Question 9. What do you believe is America's role in ensuring that 
Beijing honors the promises it made at the time of the handover and 
what do you intend to do to limit mainland interference in Hong Kong 
especially as we approach the 20th anniversary of the handover?

   Would you support visa bans on Chinese or Hong Kong officials found 
        to be involved in the recent and future abductions, 
        disappearances, and detentions of booksellers or other Hong 
        Kong residents?

    Answer. If confirmed, I will firmly support the principle of ``one 
country, two systems,'' as well as the goal of achieving universal 
suffrage in Hong Kong in accordance with the Basic Law and the 
aspirations of the Hong Kong people. I will seek to support Hong Kong's 
highly developed rule of law, independent judiciary, and respect for 
individual rights, which have been keys to its continued success, 
stability, and global competitiveness.
    If confirmed, I also will speak out on the value of Hong Kong's 
high degree of autonomy in my engagements with the Chinese Government, 
and support reinforcing that autonomy through government-to-government 
cooperation that treats Hong Kong as a special and distinct entity.The 
disappearances and detentions of booksellers and other Hong Kong 
residents raise serious questions about China's commitment to ``one 
country, two systems'' and its respect for the protection of universal 
human rights and fundamental freedoms. If confirmed, I will raise this 
issue with the Chinese Government.

    Question 10. Global health, international aviation security, and 
transnational crime are all matters of global importance that requires 
cooperation from stakeholders from all around the world. Congress has 
passed bills requiring the State Department to support Taiwan's 
meaningful participation in international organizations, such as the 
World Health Organization (WHO), the International Civil Aviation 
Organization (ICAO), and the International Criminal Police Organization 
(INTERPOL).

   If confirmed as Ambassador to China, would you support Taiwan's 
        meaningful participation in international organizations? How 
        so?
   How do you see the Trump administration's approach to the one-China 
        policy?

    Answer. If confirmed, I will support Taiwan's membership in 
international organizations that do not require statehood. In 
organizations that require statehood for membership, I will support 
Taiwan's meaningful participation. This includes ICAO, INTERPOL, WHO, 
and the more than 60 international organizations in which Taiwan 
participates.
    I am committed to supporting Taiwan as it seeks to expand its 
already significant contributions to addressing global challenges.I 
believe the United States has a deep and abiding interest in cross-
Strait peace and stability. The benefits that stable cross-Strait ties 
have brought to China and Taiwan, the United States, and the region 
have been important. China and Taiwan should understand the value of 
stable cross-Strait ties and work to establish a basis for continued 
peace and stability.

    Question 11. 11: Will you commit to explaining to Chinese 
authorities that the United States will recognize and freely interact 
with the person chosen independently by Tibetans to succeed the current 
Dalai Lama, as a way of showing now that the U.S. will not accept a 
Chinese Government-controlled selection process, and of encouraging 
Tibetans to pursue reincarnation in accordance with traditional 
practices?

   It has long been the policy of the U.S. Government, provided by the 
        Tibetan Policy Act, to promote a dialogue between the envoys of 
        the Dalai Lama and the Chinese Government toward a solution on 
        the Tibet issue that guarantees the respect of the ``distinct 
        identity'' of the Tibetan people, who continue to suffer under 
        China's oppressive rule. The dialogue is now at a standstill 
        and, as we have seen, the lack of substantive progress toward a 
        genuine resolution continues to be a thorny issue in U.S.-China 
        relations. Would you personally commit to pressing the Chinese 
        leadership for a resolution of the Tibetan issue through a 
        speedy resumption of dialogue with the Tibetan side, without 
        preconditions?
   China requires American visitors to get a special permit to visit 
        much of Tibet. American diplomats, journalists and NGOs have a 
        difficult time visiting the region as do Tibetan Americans. 
        Will you commit to ensuring that the Chinese authorities 
        provide access to Tibet for American officials, journalists and 
        citizens, just as Chinese citizens get access to the United 
        States? Will you commit to pressing the Chinese authorities to 
        allow for the opening of a U.S. consulate in Lhasa?

    Answer. I share your concerns about the lack of respect for human 
rights and rule of law in Tibet. If confirmed, I will urge Chinese 
authorities to engage in meaningful and direct dialogue with the Dalai 
Lama and his representatives without preconditions to lower tensions 
and resolve differences. I will also call on China to provide 
meaningful autonomy for Tibetans and cease restrictions on Tibetan 
religious, linguistic, and cultural practices. I will engage the 
Chinese Government regarding interference in Tibetan religious matters, 
particularly the selection and education of the reincarnate lamas who 
lead the faith.
    If confirmed, I will continue to raise concerns about the lack of 
regular access to the Tibetan Autonomous Region (TAR) for Mission China 
personnel, journalists, academics, and others. China's refusal to grant 
regular consular access to Americans in the Tibetan Autonomous Region 
represents a failure by the Chinese Government to live up to their 
international obligations. If confirmed, I will also continue to press 
the Chinese Government to allow for the option to open a U.S. Consulate 
in Lhasa.

    Question 12. Human rights groups have raised concerns that China's 
Counterterrorism Law, adopted in December 2015, has further empowered 
Chinese officials to punish peaceful activities and target ethnic 
minorities, including Uyghurs, who are predominantly Muslim. Chinese 
authorities have long conflated Uyghurs' ordinary religious activities 
as extremism and terrorism. In addition, rights advocates have raised 
concerns that new Xinjiang Party chief Chen Quanguo is applying 
repressive security mechanisms in the region that he previously used in 
Tibet.

   How will you seek to reiterate the United States' commitment to 
        preventing restrictions on peaceful religious activities and 
        other fundamental freedoms in the name of counterterrorism? 
        What are your thoughts U.S. cooperation with Chinese law 
        enforcement on counterterrorism given that many of these same 
        entities routinely engage in grave human rights standards?

    Answer. I am concerned by the human rights situation in Xinjiang, 
in particular the systematic human rights abuses committed against 
Uyghurs there and the imposition of conditions akin to martial law. If 
confirmed, I will engage the Chinese Government regarding universal 
human rights and fundamental freedoms, including religious freedom and 
the rights of individuals who belong to ethnic minority groups to 
maintain their indigenous languages, customs, and religious traditions.
    I fully support the U.S. efforts to increase coordination with 
other countries in the common fight against international terrorism. 
However, we must be careful to focus on true terrorist threats. The 
United States should not support human rights abuses in any event, 
including when conducted in the name of ``internal security.'' If 
confirmed, I will press China to understand the differences between 
human rights abuses and countering terrorism.

    Question 13. Reports from media and rights advocates in recent 
years have documented the Chinese state's use of threats against family 
members of Uyghur-American citizens and residents to prevent them from 
raising awareness about Uyghur rights issues. Chinese security 
personnel often treat China-based relatives of vocal Uyghur-Americans 
as hostages who may be jailed or released depending on how willing 
Uyghur-Americans are to stop speaking out. This has been true of Rebiya 
Kadeer. It is also true of the parents of Nury Turkel, who are eligible 
to come to the U.S. but are reportedly being held under house arrest, 
harassed, denied essential medical access, and denied the ability to 
leave China.

   Will you prioritize their immediate departure, including if 
        necessary traveling to Xinjiang to escort them to Guangzhou, 
        where they can acquire their U.S paperwork, and on to a plane 
        to ensure their safe departure? What steps would you take to 
        urge China to adhere to Article 12 of the ICCPR, which protects 
        the right to liberty of movement, which China has signed but 
        not ratified?

    Answer. If confirmed, I will press China to cease harassment of 
Chinese human rights defenders' family members. I will also push for 
the prompt lifting of the travel ban in effect for Nury Turkel's 
parents and the relatives of Rebiya Kadeer. If confirmed, I will also 
encourage China to honor its international human rights obligations and 
commitments.

    Question 14. Will you also raise the case of Falun Gong 
practitioner Deng Cuiping (the mother of a Florida constituent) who in 
February was sentenced to six years in prisoner after having been 
charged with ``organizing and using a cult to undermine the 
implementation of the law?''

    Answer. Yes. I am concerned about growing restrictions on the 
exercise of religious freedom in China and the targeted harassment of 
religious practitioners, including those that practice Falun Gong. If 
confirmed, I commit to raising these and other cases with senior 
Chinese officials.

    Question 15. Would you consider seeking revisions to the U.S.-China 
Consular Convention to clarify that Americans detained in China should 
be allowed to meet with a lawyer and discuss details of their case with 
U.S. consular officials?

    Answer. If confirmed, I will press the Chinese to adhere to their 
international obligations under the Vienna Convention for Consular 
Relations and the 1980 U.S.-China Consular Convention. These agreements 
represent the foundation of consular engagement and outline protections 
for U.S. citizens overseas. I will fully support the efforts of the 
Bureau of Consular Affairs and their work to protect our citizens in 
China.

    Question 16. Will you consistently raise with the Chinese 
Government its obligation to protect North Korean asylum seekers 
crossing its borders, allow the UN High Commissioner for Refugees to 
assist them, and stop forcibly repatriating them to North Korea?

    Answer. Yes. In light of the documented mistreatment that refouled 
refugees face at the hands of the North Korean authorities, if 
confirmed, I will urge Chinese authorities to cease the practice of 
deportation. I will also urge authorities to accept that China's 
deportation practices are inconsistent with its obligations under 
Article 3 of the Convention Against Torture and China's obligations 
under the 1951 Refugee Convention and its 1967 Protocol.

    Question 17. Job creators in America's innovation economy have 
ongoing concerns about the Chinese Government's consideration and 
adoption of cybersecurity and technology policies that are 
counterproductive to U.S. security and economic interests. As China 
moves toward implementation of its Cybersecurity Law, will you commit 
to soliciting input from industry stakeholders on harmful effects that 
need to be corrected? Will you support a delay in the law's 
implementation?

    Answer. The prosperity and cybersecurity of the United States 
depend on the ability of our businesses and innovators to develop 
pioneering products that are interoperable while protecting the 
legitimate security and privacy needs of consumers.
    I share your concerns that China's Cybersecurity Law and other 
technology-related policies are making it difficult for companies to 
provide secure, globally competitive products and services to their 
clients in China.
    If confirmed, I will work closely with other U.S. agencies, consult 
with industry stakeholders, to press China to retract or mitigate any 
laws and regulations that adversely affect the ability of U.S. business 
to enter and operate in China and U.S. national security and economic 
interests.

    Question 18. Some have called China's Internet Firewall the Berlin 
Wall of the 21st Century. What priority would you place on Internet 
freedom programs in a country like China? In your view did the Obama 
administration give this issue sufficient attention given its 
geopolitical implications?

    Answer. An open and interoperable internet fosters free expression 
and innovation. The Chinese Government's censorship of Internet 
content, including social media and online news, and restrictive 
regulation of network providers hinders the use of the Internet as an 
open platform where individuals are free to share information and 
express their beliefs. This essential character of the Internet is 
central to driving innovation and supporting modern economies around 
the world that provide tremendous benefits for their people. If 
confirmed, I will promote the free flow of information online in China 
and advocate for a free and open Internet in China. I will urge China 
to respect its international obligations and commitments regarding 
human rights and fundamental freedoms, including to the freedoms of 
expression, association, and assembly, both on and offline.



                               __________


           Responses to Additional Questions for the Record 
     Submitted to Hon. Tery Branstad by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The hallmark of American leadership in the world has been 
our vigilant advocacy for human rights and democracy. As governor of 
Iowa, my role internationally was not focused on the direction or 
implementation of foreign policy around democratic norms or human 
rights. However, I have always tried to recognize my responsibility as 
an American representing our values. In the 1980s, shortly after the 
Chernobyl incident, I visited the Soviet Union. While there, my wife 
and I met with Refuseniks in what was then Leningrad, now known as St. 
Petersburg. These people were seeking democracy. I was not bashful 
about meeting with dissidents then and I am not hesitant now to meet 
with people who feel they are being discriminated against or are being 
treated unfairly.
    Over the course of my six terms as governor, I have always valued 
upholding human rights for all. Treating all people with respect and 
dignity has been a guiding principle for me throughout time in public 
service. Our Constitution and the Universal Declaration of Human Rights 
adopted by the United Nations sets out the right to freedom of 
religion. In Iowa, I have long worked to promote and uphold all 
freedoms guaranteed to Iowans and especially the freedom of religion in 
our state.

    Question 2. What are the most pressing human rights issues in 
China? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in China? What do you 
hope to accomplish through these actions?

    Answer. As I said in my testimony, as an old friend, I think I can 
tell President Xi where they are falling short and the kinds of things 
that need to be addressed, including human rights. I'm Catholic. I want 
to go to a Catholic church in China. I want to welcome people of all 
backgrounds to the U.S. Embassy. I want to travel to other parts of 
China to meet with them as well. I will represent American values--
including human rights--every day of my service.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in China in advancing 
human rights, civil society and democracy in general?

    Answer. China's growing restrictions on media and access to 
information make it difficult for Chinese citizens to exercise their 
rights to freedom of expression. I will uphold the U.S. commitment to 
be firm in representing our core democratic values and advocating for 
the human rights of all people.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in China?

    Answer. Yes. I am committed to continuing to support those 
organizations and rights activists in China, and look forward to 
meeting with them both in the U.S. and China.

    Question 5. Will you and your embassy team actively engage with 
China to address cases of key political prisoners or persons otherwise 
unjustly targeted by China?

    Answer. If confirmed, I am committed to raising individual cases 
with senior Chinese officials. I will also work with like-minded 
countries to deliver a consistent message to China on human rights 
issues of mutual concern.

    Question 6. Will you engage with China on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed I will consistently raise our serious 
concerns about China's human rights record with senior Chinese 
officials.

    Question 7. If confirmed, do you commit to ensuring that a human 
rights case or issue is raised in every senior meeting, particularly by 
visiting Cabinet members, during your tenure?

    Answer. If confirmed, I commit to regularly raising human rights 
cases and issues with Chinese authorities. I will not shy away from 
raising these issues, and will encourage visitors to do so as well.

    Question 8. Will you discourage closer cooperation on 
counterterrorism or law enforcement with China until Beijing's policies 
and practices are in conformity with international human rights 
standards?

    Answer. The U.S. cooperates with China, including in the area of 
law enforcement and counterterrorism, only in strict accordance with 
our laws and values. Our engagement with China's law enforcement 
agencies provides a venue for us to raise our human rights concern 
while we still advance cooperation on common interests. However, we 
have serious differences with the Chinese on many aspects of their law 
enforcement and counterterrorism policies and if confirmed I will raise 
these differences with senior Chinese leadership as well.

Emoluments
    Question 9.  The American people have a right to know whether 
decision-making is being conducted in the public interest or in 
President Trump's private financial interest. As I have raised 
publicly, the decision by China to grant the Trump Organization 
valuable trademarks just after the president's election is hard to view 
as anything other than an effort to provide a valuable gift to the 
president--consistent with the sort of corruption we see throughout the 
Communist Party in China.
    If confirmed, please rest assured that we will be watching closely 
whether the U.S. Ambassador is put in the position of giving favorable 
treatment to the Trump Organization or members of the Trump family, or 
lobbying the Chinese Government on their behalf.

   Given the president's decision not to divest himself or to fully 
        disclose his financial interests, how do you plan, if confirmed 
        as ambassador, to assure that you do not unwittingly support 
        the president in violating the Constitution's Emoluments 
        clause?

    Answer. If confirmed, I pledge, as do all U.S. officials, to uphold 
and defend the Constitution of the United States. I will comply with 
and seek to uphold all U.S. laws.

    Question 10. Do you commit to providing the Congress with 
information you become aware of that may relate to violations of the 
Emoluments Clause of the U.S. Constitution?

    Answer. Yes.

    Question 11. As you know, shortly after President Trump won 
election, China granted the Trump Organization a number of valuable 
trademarks that they had been seeking for years. More recently, China 
granted three trademarks to Ivanka Trump, on the very day that 
President Xi met with the President.

   What is your understanding of the role of the political leadership 
        of China in influencing bureaucratic decision-making?

    Answer. As a private U.S. citizen, I am unable to judge accurately 
the portion of Chinese decisions that are subject to political 
considerations rather than merit.

    Question 12. Given what we know about how the Chinese Government 
functions, can it credibly be argued that the timing of these trademark 
grants was mere coincidence?

    Answer. As a private U.S. citizen, I have no direct knowledge of 
the decision-making process the Chinese Government followed in this 
instance. I cannot accurately speculate on the motivations of the 
Chinese Government in this instance.

    Question 13. As ambassador, how will you assure that American 
trademark filers are treated fairly and with integrity, and their 
applications judged by Chinese officials properly and on the merits?

    Answer. If confirmed as ambassador, I will seek a fair and 
equitable treatment of Americans seeking intellectual-property 
protections from the Chinese Government and for the general protection 
and respect of U.S. intellectual property. I will seek for relevant 
applications by U.S. citizens and organizations be judged on their 
legal merits.

North Korea
    Question 14. China has always been concerned that strong economic 
pressure on North Korea over its nuclear and missile activities could 
destabilize Pyongyang and potentially unleash refugee and migrant flows 
into China or even lead to the collapse of the regime. Yet central to 
President Trump's approach to North Korea is additional Chinese 
pressure on Pyongyang.

   What additional steps do you believe China should be taking to put 
        pressure on North Korea?

    Answer. As a neighbor of North Korea, China is a major trading 
partner and they have recently placed some restrictions on coal 
imports. If confirmed, I will work with the Trump administration to 
pursue various other diplomatically and economically acceptable avenues 
to send a clear signal that the world does not tolerate this expansion 
of nuclear technology and missiles. It is a threat to all mankind and 
we must look at all opportunities to work together.

    Question 15. What are the metrics that the U.S. should use to judge 
whether China is doing enough?

    Answer. If confirmed, I will convey to the Chinese that the United 
States expects them to use their leverage to compel North Korea to 
return to serious talks. I am hopeful that China is starting to do more 
to exercise its leverage on the North Korean regime. For a start, the 
Chinese Government announced this past February that it will impose an 
absolute ban on North Korean coal imports through the end of the year. 
The real test, however, will be implementation.
    On April 28, the Secretary asked all UN member nations, including 
China, to increase North Korea's isolation--through sanctions severing 
trade relationships that fund weapons programs including coal, and by 
suspending the flow of North Korean guest workers. If confirmed I will 
press China to respond positively to these requests.

    Question 16. Should we be sanctioning Chinese companies that do 
business with North Korea?

    Answer. If confirmed, I will work with my interagency team at the 
Embassy and in our Consulates, as well as with colleagues back in 
Washington, to utilize all tools at our disposal to choke off resources 
that fund the DPRK's proscribed nuclear and missile programs, including 
sanctioning Chinese entities if appropriate.

    Question 17. Should we press China to cut off energy and food aid 
to North Korea?

    Answer. While the North Korean people have legitimate humanitarian 
needs, I understand that a significant portion of China's purported aid 
to North Korea is funneled to support the North Korean's ballistic 
missile and nuclear weapon development program. If confirmed, I will 
address this problem with China directly to ensure that any assistance 
that China and our international partners provide for humanitarian 
purposes is directed to the North Korean people.

    Question 18. The President has suggested that he'd be willing to 
pull his punches on issues like trade and currency concerns if China 
helped us on North Korea. Do you agree these issues should be linked?

    Answer. If confirmed, I will work with Secretary Tillerson and 
other U.S. agencies to support his commitment to expand economic 
opportunities for American businesses by candidly addressing areas of 
economic friction between our two countries. China shares our goal of a 
denuclearized Korean peninsula and has been working with the U.S. on UN 
sanctions and other diplomatic actions to realize this goal.

    Question 19. There is a growing concern among our allies that our 
recent statements on North Korea reify that ``all roads lead to and 
through Beijing.'' Are you concerned that by elevating China's role in 
the North Korea situation you are, perhaps inadvertently, sending a 
message that East Asia is China's sphere of influence?

    Answer. China holds significant influence over North Korea,We need 
to convince the leadership in China that it is in their best interest 
and our interest to work together to stop this dangerous direction that 
is coming out of North Korea. That said, if China is not willing or is 
unable to achieve that goal, then the United States can and will handle 
this matter on our own with the backing of our strong regional allies 
in Northeast Asia.

    Question 20. ``The Trump administration's policy on China appears 
to be highly ``transactional.'' Making policy via twitter and one-
liners, the President has hinted at being willing to trade the One 
China Policy for a trade deal with China, or that we wouldn't press 
them so hard on trade if they performed on North Korea, and even that 
the US-Taiwan relationship might be subject to bargain with Beijing.''

   Would you agree with this characterization?

    Answer. If confirmed, I would support the administration's 
reaffirmation to China that the United States remains committed to our 
One China policy based on the Three Joint Communiques and the Taiwan 
Relations Act.
    China has a unique role to play in our efforts to push the DPRK to 
denuclearize, and this administration has made coordination on the DPRK 
a key aspect of its engagement with China. If confirmed, I would 
support the administration's efforts to correct long-standing 
imbalances in our trade relationship with China, so that the peoples of 
both our countries can benefit from that trade.
    The U.S. has many interests with China and we will pursue all of 
them.

    Question 21. What should be the underlying interests that guide the 
U.S.-China relationship and how do you plan on prioritize them?

    Answer. The last several decades of political and economic reforms 
have brought monumental changes to the way in which China interacts 
with the outside world. Rather than opposing China's rise, if 
confirmed, I would echo the administration's overarching goal of 
bringing China's behavior in line with internationally accepted rules 
and order.
    If confirmed, I would work to improve the relationship the United 
States has with China, seeking to make positive progress in areas such 
as economics and trade, law enforcement, and counterterrorism, while at 
the same time promoting and safeguarding American interests and values.

    Question 22. What are the elements of the Trump administration's 
affirmative agenda for China? Would you agree with the characterization 
of the U.S.-China policy that Secretary Tillerson presented during his 
visit to Beijing, namely that ours is a ``very positive relationship 
built on non-confrontation, no conflict, mutual respect, and always 
searching for win-win solutions?''

    Answer. The Trump administration wishes to have a constructive, 
results-oriented relationship with China. As part of that, the Trump 
administration wishes to put America first by ensuring that American 
interests are safeguarded in all aspects of our relationship with 
China.
    If confirmed, I would seek to make progress with China in areas 
where such progress is possible, while engaging frankly and 
constructively on areas of disagreement.

    Question 23. What do you believe should be the U.S. position on 
President Xi's proposal that the United States and China should seek to 
build a ``new model of major country relations'' based on the 
principles of ``non-conflict, non-confrontation, mutual respect and 
win-win cooperation? ''

    Answer. The United States wishes to have a constructive, results-
oriented relationship with China, but will continue to defend U.S. 
interests and raise areas of concern with China where appropriate. If 
confirmed, I would support these efforts.

South China Sea
    Question 24. China claims all the islands, reefs, and rocks in the 
South China Sea. So does Taiwan. Vietnam claims the Spratlys. Malaysia, 
the Philippines and Brunei claim some features.

   What should be the U.S. policy toward the South China Sea? Should 
        we get involved in recognition or adjudication of claims?

    Answer. The United States has a national interest in freedom of 
navigation and overflight, respect for international law, unimpeded 
lawful commerce, and the peaceful resolution of disputes in the South 
China Sea.
    Should I be confirmed, I would uphold the United States' position 
that competing sovereignty claims should be resolved peacefully without 
coercion.
    Should I be confirmed, I would support the position that maritime 
claims should be made and pursued in accordance with international law. 
All maritime claims in the South China Sea should be derived from land 
features.

    Question 25. What should be the US response to China's 
militarization of the South China Sea? What can the US do to deter 
further Chinese militarization?

    Answer. China's construction of military facilities, coupled with 
its efforts to enforce sweeping and unlawful maritime claims, raises 
legitimate concerns about its intentions in the South China Sea.
    I support the position that all claimants, including China, must 
refrain from new construction on, and militarization of, disputed 
features, and to commit to managing and resolving disputes peacefully.
    Should I be confirmed, I look forward to working with the 
administration to look closely at all of the tools at our disposal to 
shape China's troubling behavior in the South China Sea.
    Should I be confirmed, I would communicate that the United States 
will continue to demonstrate that it will fly, sail, and operate 
wherever international law allows, including in the South China Sea.

    Question 26. In the past, U.S.-Chinese cooperation on climate 
change has been a bright spot in the trans-Pacific relationship between 
two global powers. What is your understanding of how China's domestic 
and global economic plan for clean energy development and how do you 
intend to maintain or build the constructive U.S.-China dialogue on 
these issues?

    Answer. China has pledged to generate 20 percent of its total 
energy from non-fossil sources by 2030. China will need to add around 
900 GW of non-fossil capacity between 2015 and 2030, an amount nearly 
as large as the current total electricity generation capacity in the 
United States. To meet these goals, China will need to invest heavily 
in non-fossil fuel energy sources such as renewable and nuclear energy, 
and they have set wind, solar, nuclear, and hydro installed capacity 
targets.
    American businesses have some of the best advanced energy and 
energy efficiency technology and can help China achieve their goals. 
American businesses are at the forefront of innovation in the clean 
energy and energy efficiency technologies, and American workers are the 
best trained in the world. If confirmed, I will support collaboration 
with China on clean energy and traditional energy projects, including 
areas like biofuels and carbon capture and sequestration, that promotes 
U.S. business interests and opportunities.

    Question 27. Do you believe climate change is real?

    Answer. The risk of climate change does exist. Responses to climate 
change will require action from everyone, including both the United 
States and China.

    Question 28 Can you explain how you intend to continue a build the 
credibility of U.S. energy and climate change diplomacy with China, in 
light of the President's action to eliminate all federal regulation on 
climate change and to eliminate all U.S. assistance that has nexus 
whatsoever to climate change or clean energy?

    Answer. If confirmed, I will act to protect and advance U.S. 
national interests in all matters, including climate change and clean 
energy.

    Question 29. How do you intend to project and demonstrate 
leadership in an area that China wants to work with the U.S. but is 
also poised to usurp total control and dominance from the U.S?

    Answer. If confirmed, I intend to act to protect and advance U.S. 
national interests in all matters, including climate change and clean 
energy, regardless of the actions of other nations, including China.
    America, as a leader in global energy, is a critical force in 
advancing energy efficiency and clean energy efforts around the world. 
American businesses are at the forefront of innovation in the clean 
energy and energy efficiency technologies, and American workers are the 
best trained in the world. If confirmed, I will support collaboration 
with China on clean energy and traditional energy projects, including 
areas like biofuels and carbon capture and sequestration, that promotes 
U.S. business interests and opportunities.

    Question 30. What is your understanding of the link between Chinese 
foreign investment in energy resources and development and Chinese 
projection of their vision of global governance and diplomatic 
influence?

    Answer. Should I be confirmed, I plan to stress the importance of 
China adhering to existing internationally-accepted best practices in 
infrastructure development and financing, and to adopting an open and 
inclusive approach to its overseas infrastructure projects.

Taiwan
    Question 31. The United States supports Taiwan's meaningful 
participation in international organizations. Recognizing Taiwan's 
capacity and willingness to contribute to important global issues, 
Congress has passed legislation requiring the State Department to 
support Taiwan's participation in the World Health Organization (WHO), 
the International Civil Aviation Organization (ICAO), and the 
International Criminal Police Organization (INTERPOL).

   If confirmed, are you committed to implementing this policy? If the 
        Chinese Government tries to block Taiwan's international 
        participation, how do you plan to engage Beijing on this issue?

    Answer. If confirmed, I will support Taiwan's membership in 
international organizations that do not require statehood. In 
organizations that require statehood for membership, I will support 
Taiwan's meaningful participation. This includes ICAO, INTERPOL, WHO, 
and the more than 60 international organizations in which Taiwan 
participates.
    I am committed to supporting Taiwan as it seeks to expand its 
already significant contributions to addressing global challenges.
    I believe the United States has a deep and abiding interest in 
cross-Strait peace and stability. The benefits that stable cross-Strait 
ties have brought to China and Taiwan, the United States, and the 
region have been important. China and Taiwan should understand the 
value of stable cross-Strait ties and work to establish a basis for 
continued peace and stability.
Labor
    Question 32. When the State Department assesses the human rights 
records of countries each year, it uses seven key measurements, one of 
which is labor rights. Over the past 3 years, there have been over 
5,000 labor strikes in China and China has correctly been criticized 
for deplorable working conditions.
    One way we press other nations on human rights is to set an 
example. On labor rights, you have not set a good example. As Governor 
of Iowa, you recently signed legislation that essentially denies public 
workers in your state collective bargaining rights that they have 
enjoyed for 45 years.

   What are your views about the role of labor in achieving more 
        democracy? Do you think that you can hold China accountable for 
        its workers' rights record when your own record with respect to 
        collective bargaining is poor? If and when you engage with 
        Chinese officials around their lack of free and independent 
        unions, low wages due to lack of collective bargaining, unsafe 
        working conditions, and failure to meet international labor 
        standards, how will you address their questions around your 
        work to weaken unions in Iowa?

    Answer. If confirmed, I will continue pushing China to adopt 
robust, common sense protections for its workers. I will engage with 
China on ending practices such as forced labor and labor trafficking, 
and on updating its laws to conform to international obligations and 
best practices in labor standards and workplace safety.

    Question 33. Are you aware of any organization group or individual 
supporting the changes to the public sector labor law (Iowa Chapter 
20), who has committed or implied financial or political support to 
Iowa legislators or the Governor? If so, which individual, group or 
organization pledged or implied such support? What was the nature of 
the pledged or implied support?

    Answer. No.

    Question 34. Why was a representative of Americans for Prosperity, 
a conservative political group that is funded by the billionaire Koch 
and DeVos families, the only member of the public who joined you for 
the signing of the bill that undermined public employee bargaining 
rights?

    Answer. In February, I signed House File 291 into law during a bill 
signing ceremony with members of the Iowa Legislature, staff, and the 
public.

Trade
    Question 35. I hear from U.S. companies across sectors about 
problems regarding doing business in China. And it's not just American 
companies that have reported access issues--it's companies around the 
world. A 2016 European Union Chamber of Commerce in China business 
confidence survey stated that the business environment in China was 
becoming ``increasingly hostile'' and ``perpetually tilted in favor of 
domestic enterprises.'' These biased policies not only make it hard for 
our companies to compete within China. They also have the potential to 
put American workers and companies at a disadvantage to Chinese firms 
that receive unfair domestic support or subsidies. We need to level 
this playing field for our workers and our businesses.

   If confirmed, how would you work with your counterparts, including 
        other ambassadors based in Beijing, to address these issues?

    Answer. U.S. and other foreign companies continue to report an 
increasing number of challenges they encounter when doing business in 
China. If confirmed, I will support efforts by the administration to 
seek freer and fairer trade with our trading partners, particularly 
with those such as China with which we have trade deficits. If 
confirmed, I will also support the administration's desire to see China 
remove the discriminatory restrictions that it places on U.S. firms 
already operating in China or seeking access to the Chinese market.
    If confirmed, I will work with my counterparts, including other 
ambassadors based in Beijing, to support efforts to ensure fairness and 
balance in the business environment in China.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to Hon. Terry Branstad by Senator Robert Menendez

South and East China Seas


    Question 1. It is a longstanding US policy to not recognize Chinese 
claims of sovereignty over the South or East China Sea and or any 
islands therein. Yet we see the country taking aggressive steps to 
expand its influence and control, even to the point of militarizing the 
islands and outrageously seizing a U.S. Navy vessel in international 
waters.

   Would you support a targeted sanctions regime against firms and 
        individuals that facilitate certain investments in the South 
        China Sea or East China Sea, including land reclamation, 
        island-making, construction, supply facilities or civil 
        infrastructure projects in any land that is currently disputed 
        territory between any other nations?

    Answer. The United States has a national interest in freedom of 
navigation and overflight, respect for international law, unimpeded 
lawful commerce, and the peaceful resolution of disputes in the South 
China Sea.
    If confirmed, I will encourage the administration to look closely 
at all of the tools at its disposal to shape China's troubling behavior 
in the South China Sea.

    Question 2. Likewise, would you work to build support to prohibit 
official recognition of the South China Sea or East China Sea as part 
of China, and to limit certain kinds of assistance to countries that 
recognize Chinese sovereignty over either Sea?

    Answer. If confirmed, I would work to make clear to China that we 
believe that maritime claims should be made and pursued in accordance 
with the international law of the sea, as reflected in the Law of the 
Sea Convention. In accordance with international law, all maritime 
claims in the South China Sea must be derived from land features.
    If confirmed, I would urge China to refrain from new construction 
on, and militarization of, disputed features, to avoid other actions 
that would complicate or escalate the disputes, and to commit to 
managing and resolving disputes peacefully and in accordance with 
international law.

    Question 3. How will you convey these views to your interlocutors 
in the Chinese Government?

    Answer. If confirmed, I will make use of the full array of 
communications channels available to the ambassador to ensure that the 
U.S. views reach different levels of the Chinese Government.

North Korea
    Question 4. I recognize that some analysts are skeptical about the 
effect of sanctions on a corrupt country like North Korea. However, as 
the leading sponsor of legislation that was overwhelmingly passed to 
impose and tighten sanctions on North Korea, I believe they can have a 
meaningful impact if rigorously enforced.

   Do you believe China is in fact in compliance with UNSC 
        resolutions?

    Answer. The Chinese Government announced this past February that it 
will impose an absolute ban on North Korean coal imports through the 
end of the year. The real test, however, will be implementation. If 
confirmed, I will encourage China to fulfill its obligations under 
successive U.N. Security Council resolutions. I will reiterate to the 
Chinese leadership that their willingness to work with us to solve the 
Asia-Pacific's most acute threat to peace and security will be a 
benchmark of their commitment to pursue a constructive results-oriented 
relationship with the United States.

    Question 5. What measures can we take to enlist greater PRC support 
of the existing sanctions regime?

    Answer. We need to convince the Chinese that they are the ones that 
have the potential to really influence the regime, more than anyone 
else. The change that needs to take place does not need to be a threat 
to the system, but needs to stop nuclear proliferation. We need to 
convince the leadership in China that it is in their interest to work 
with us to stop this dangerous direction that is coming out of North 
Korea.

    Question 6. Will you work to get Chinese support should the UNSC 
consider imposing additional sanctions on DPRK if needed?

    Answer. On April 28, the Secretary asked all U.N. member nations, 
including China, to increase North Korea's financial isolation-
including through new sanctions, severing trade relationships, 
suspending the flow of guest workers, and banning imports from North 
Korea, including coal. If confirmed, I will press China to respond 
positively to these requests.
    If confirmed, I will work with my interagency team at the Embassy 
and in our Consulates, as well as colleagues back in Washington, to 
utilize all tools at our disposal to choke off revenues that fund the 
DPRK's proscribed nuclear and missile programs, including sanctioning 
Chinese entities if appropriate.

    Question 7. In the past, then President-elect Trump suggested that 
the United States would no longer be bound by the One China policy--a 
policy that is in our national security interests. Moreover, Taiwan's 
successful democratic experiment is a significant accomplishment for 
American foreign policy; the country remains a strategic partner of the 
U.S.

   Are you committed to maintaining the One China policy?

    Answer. If confirmed, I would continue to maintain support for our 
One China Policy, which is based on the three joint communiques and the 
Taiwan Relations Act. I remain committed to our desire to see this 
cross-Strait issue peacefully resolved.

    Question 8. Where does Taiwan stand in your calculus?

    Answer. I believe that our long-standing friendship with the people 
of Taiwan remains a key element of our Asia policy. Our enduring 
relationship under the Taiwan Relations Act represents a unique asset 
for the United States and is an important multiplier of our influence 
in the region. This friendship is grounded in history, shared values, 
and our common commitment to democracy, free markets, rule of law, and 
human rights. As one of Taiwan's strongest partners, I support working 
side-by-side to increase our mutual economic prosperity, tackle global 
challenges and ensure effective security to support continued stability 
and dynamism for Taiwan and the region.
    I believe that the United States has a deep and abiding interest in 
cross-Strait peace and stability. It is important that China and Taiwan 
understand the importance of these benefits and work to establish a 
basis for continued peace and stability. The benefits that stable 
cross-Strait ties have brought to China and Taiwan, the United States, 
and the region have been enormous.

    Question 9 Are you committed to an alliance and partnership we 
maintained with Taiwan since 1949?

    Answer. If confirmed, I would continue to maintain support for our 
One China Policy, which is based on the three joint communiques and the 
Taiwan Relations Act. The Taiwan Relations Act spells out that it is 
the policy of the United States, among other things: to preserve and 
promote extensive, close, and friendly commercial, cultural, and other 
relations between the people of the United States and the people of 
Taiwan, as well as the people on the China mainland and all other 
peoples of the Western Pacific area; and to declare that peace and 
stability in the area are in the political, security, and economic 
interests of the United States, and are matters of international 
concern.
    Our long-standing friendship with the people of Taiwan remains a 
key element of our Asia policy. Our enduring relationship under the 
Taiwan Relations Act represents a unique asset for the United States 
and is an important multiplier of our influence in the region. This 
friendship is grounded in history, shared values, and our common 
commitment to democracy, free markets, rule of law, and human rights. 
As one of Taiwan's strongest partners, I support the United States 
working side-by-side to increase our mutual economic prosperity, tackle 
global challenges and ensure effective security to support continued 
stability and dynamism for Taiwan and the region.

    Question 10. I was extremely disappointed by the decision of the 
International Civil Aviation Organization (ICAO) not to issue an 
invitation to Taiwan to attend the 2016 ICAO Assembly that was held in 
Montreal, Canada. A similar situation continues with regards to 
sensible Taiwanese participation in INTERPOL. The vagaries of cross-
strait relations should not be allowed to prevent the prudent 
participation of Taiwan in international bodies, assemblies, and 
agencies, even if only as an observer.

   What will you do to actively discourage imprudent Chinese efforts 
        to isolate Taiwan even when common sense, international 
        security and safety imperatives argues for Taiwanese 
        engagement?

    Answer. If confirmed, I will support Taiwan's membership in 
international organizations that do not require statehood. In 
organizations that require statehood for membership, I will support 
Taiwan's meaningful participation. This includes ICAO, INTERPOL, WHO, 
and the more than 60 international organizations in which Taiwan 
participates.
    I am committed to supporting Taiwan as it seeks to expand its 
already significant contributions to addressing global challenges.
    I believe the United States has a deep and abiding interest in 
cross-Strait peace and stability. The benefits that stable cross-Strait 
ties have brought to China and Taiwan, the United States, and the 
region have been important. China and Taiwan should understand the 
value of stable cross-Strait ties and work to establish a basis for 
continued peace and stability.

    Question 11. What can you do to put pressure on the Chinese to 
reconsider their opposition to Taiwanese participation in future such 
gatherings and to demonstrate leadership, fairness, and courage by 
allowing the needful participation of Taiwan in such conferences?

    Answer. If confirmed, I will support Taiwan's membership in 
international organizations that do not require statehood. In 
organizations that require statehood for membership, I will support 
Taiwan's meaningful participation. We remain committed to supporting 
Taiwan as it seeks to expand its already significant contributions to 
addressing global challenges.
    I believe the United States has a deep and abiding interest in 
cross-Strait peace and stability. The benefits that stable cross-Strait 
ties have brought to China and Taiwan, the United States, and the 
region have been important. China and Taiwan should understand the 
value of stable cross-Strait ties and work to establish a basis for 
continued peace and stability. If confirmed, I will encourage 
authorities in Beijing and Taipei to engage in constructive dialogue 
that seeks a peaceful resolution of differences acceptable to the 
people of China and Taiwan.

    Question 12. I'm the co-chair of the Taiwan Caucus. In that 
capacity, I've years of experience following the cross-strait relations 
between the People's Republic of China and Taiwan; this past April 
marked the 38th anniversary of the enactment of Taiwan Relations Act 
(TRA), a pivotal event in our shared history and emblematic of our 
strong bilateral relations. Unfortunately, China is increasingly taking 
an aggressive approach with its neighbors, including Taiwan. Given 
these geopolitical developments, it would make sense to ensure that 
Taiwan can adequately defend itself and possess the means to resist new 
and increased military threats, from where ever source.
    Would you be supportive of being an advocate within the Trump 
administration to return to a process of regular and normalized arms 
sales for Taiwan as opposed to the "package" approach that the past 
couple of administrations have taken?

    Answer. I am fully committed to fulfilling our responsibilities 
under the Taiwan Relations Act (TRA). In accordance with the TRA, we 
will continue to make available to Taiwan such defense articles and 
services in such quantity as may be necessary for Taiwan to maintain a 
sufficient self-defense capability.

    Question 13. During the U.S.-China Summit held on April 6-7, 
President Trump did not publicly raise the question of the lack of 
respect for human rights and the rule of law in China and in Tibet. 
Since 1997, all U.S. Presidents have publicly challenged the sitting 
Chinese President to negotiate with the Dalai Lama or his 
representative to find a lasting solution to the Tibetan issue.

   If appointed would you commit to publicly raising with Chinese 
        leaders the grievances of the Tibetan people and the need for 
        them to resume dialogue with the Dalai Lama?
   Do you plan to raise the issue of human rights in Tibet?

    Answer. Yes. I remain deeply concerned about the lack of respect 
for human rights and rule of law in Tibet. If confirmed, I will urge 
Chinese authorities to engage in meaningful and direct dialogue with 
the Dalai Lama and his representatives to lower tensions and resolve 
differences. I will also call on China to provide meaningful autonomy 
for Tibetans and cease restrictions on Tibetan religious, linguistic, 
and cultural practices. I will engage the Chinese Government regarding 
interference in Tibetan religious matters, particularly the selection 
and education of the reincarnate lamas who lead the faith.

    Question 14. How can China contribute more effectively to building 
international consensus that will hold Russian officials accountable 
for gross human rights abuses and for violating the territorial 
integrity of Ukraine?

    Answer. If confirmed, I will urge China to condemn Russia's 
violations of Ukraine's sovereignty and territorial integrity, 
specifically, Russia's occupation and attempted annexation of Crimea 
and its aggression in eastern Ukraine.

    Question 15. What steps will you take to encourage China's positive 
engagement on the Syrian conflict?

    Answer. If confirmed, I will work with China to coordinate greater 
cooperation with the United States and the international community 
towards the defeat of ISIS. If confirmed, I will also continue to urge 
China to take meaningful steps at the U.N. Security Council and through 
its bilateral channels to Damascus to facilitate a political process to 
resolve Syria's future, which will ultimately lead to a resolution of 
Assad's departure. Last year, China pledged a commitment of $300 
million in new humanitarian assistance--including via the U.N., Red 
Cross, and other international organizations--to mitigate the 
humanitarian suffering emanating from Syria and other countries. If 
confirmed, I will continue to urge China to follow through on that 
commitment and to continue to increase its support through coordinated, 
transparent, and multilateral channels in the future.

    Question 16. Many foreign countries do not see the U.S. as a leader 
on climate change and are concerned about the Trump administration's 
commitment to climate change mitigation. President Xi has appeared to 
be eager to step into this leadership vacuum. Do you believe the United 
States risks ceding to China this important mantle?

    Answer. Responses to climate change will require action from 
everyone, including the United States and China.

    Question 17. Would you advocate within the administration for 
renewed commitment to demonstrating American leadership in this area 
and the need confront the issue of climate change with determination 
and clearheaded global effort?

    Answer. The U.S. international climate change policy is currently 
under review, including bilateral climate and energy cooperation with 
countries like China.

    Question 18. In the previous administration the United States and 
China entered into a joint agreement that would see China halt 
increases in its greenhouse gas emissions by 2030, with a stated goal 
of peaking earlier than that. However, the Trump administration is 
taking a different approach. China appears to wish to take a global 
leadership role on climate change. Do you think that it is in the U.S. 
interest to see Canada and China uphold their sides of these 
agreements?

    Answer. The U.S. international climate change policy is currently 
under review, including bilateral climate and energy cooperation with 
countries like China and Canada. Responses to climate change will 
require action from everyone, including the United States, Canada, and 
China.

    Question 19. If meeting their obligations is contingent upon us 
meeting our own commitments, is it in our interest to uphold our side 
of the agreements?

    Answer. The U.S. international climate change policy is currently 
under review, including bilateral climate and energy cooperation with 
other countries. Responses to climate change will require action from 
everyone, including the United States.
    The use of the veto power by Russia at the United Nations Security 
Council has contributed to the UNSC's ineffectual responses to some 
serious humanitarian and security challenges, Syria and South Sudan 
come to mind.

    Question 20. Do you see China taking a more helpful role in these 
matters?

    Answer. As a permanent member of the Security Council, China has an 
important role to play in maintaining international peace and security. 
If confirmed, I will continue to urge China to take meaningful steps at 
the U.N. Security Council to facilitate a political process to resolve 
Syria's future which will ultimately lead to the resolution of Assad's 
departure.
    With respect to South Sudan, China and the United States share an 
interest in political stability and prosperity in that country, and the 
two countries have engaged in regular diplomatic dialogue for several 
years. If confirmed, I will continue to engage China constructively on 
South Sudan to encourage all parties in South Sudan to cease 
hostilities and engage in a credible, inclusive political process.

    Question 21. What will you do to encourage China to contribute more 
to the mitigation of serious global humanitarian challenges?

    Answer. Last year, China pledged a commitment of $300 million in 
new humanitarian assistance--including via the U.N., Red Cross, and 
other international organizations--to mitigate the humanitarian 
suffering emanating from global hot spots. This is a positive 
development. If confirmed, I will urge China to follow through on that 
commitment and to continue to increase its support through coordinated, 
transparent, and multilateral channels in the future.

    Question 22. Counterfeit imports are increasingly threatening the 
viability of New Jersey and other businesses around the country. 
Globally, this is a half-trillion dollar problem, and the OECD notes 
that the United States is world's biggest victim of counterfeit and 
pirated goods--precisely because our country is the world leader in 
innovation and branding--the very sources of value that counterfeiters 
exploit. I sought to draw Customs and Border Protection's attention to 
this growing issue, recognizing that the agency needs to better screen 
small packages sent from international business to U.S. consumers, 
often illegally marked as "gifts" to evade customs duties and 
detection. As you might imagine, China is the overwhelming source of 
these counterfeit goods.

   Will you commit to raising this issue with the Chinese Government?

    Answer. One of the top trade priorities for the Trump 
administration is to use all possible sources of leverage to encourage 
other countries to open their markets to U.S. exports of goods and 
services, and provide adequate and effective protection and enforcement 
of U.S. intellectual property (IP) rights. Toward this end, if I am 
confirmed a key objective for the administration's trade policy will be 
ensuring that U.S. owners of IP have a full and fair opportunity to use 
and profit from their IP around the globe.
    The Special 301 report issued on April 28 reaffirmed China's place 
on the Priority Watch List due to widespread infringing activity, 
including trade secret theft, rampant online piracy, and high volume 
exports of counterfeit goods to markets around the globe.
    If confirmed, I will work closely with the entire U.S. Government, 
including the U.S. Trade Representative, Departments of Commerce, 
Treasury, and Homeland Security as well as with international partners 
to use our available tools to curb illegal IPR-infringing actions in 
and coming from China protect American jobs, innovation, and U.S. 
economic prosperity.

    Question 23. Weak intellectual property protections and a growing 
array of localization barriers abroad are threatening innovative 
exports and the many jobs they support here at home. China in 
particular is a serious offender, and it has never lived up to many of 
the intellectual property commitments it made to the United States and 
other WTO members 15 years ago. IP is a competitiveness and jobs issue 
for America, and it should be for China if it wants to be a world-class 
innovator.

   If confirmed, what will you do to ensure that American innovations 
        and jobs receive a level playing field with the Chinese?

    Answer. The United States has been a leader in promoting the rule 
of law, including in the area of intellectual property, which is vital 
to promoting competition and innovation and benefits all of us as 
consumers.
    If confirmed, I will work closely with the U.S. Trade 
Representative, Departments of Commerce, Treasury, and Homeland 
Security as well as with international partners to press China to stop 
using legal proceedings to disadvantage American companies or gain 
access to their intellectual property.

    Question 24. How we can develop a more comprehensive and results 
oriented trade strategy, as opposed to lurching forward with a meeting 
by meeting strategy that only provides limited results?

    Answer. As President Trump highlighted in his Trade Policy Agenda 
earlier this year, the overarching purpose of our trade policy will be 
to expand trade in a way that is freer and fairer for all Americans. At 
Mar-A-Lago, Presidents Trump and Xi agreed to create a Comprehensive 
Economic Dialogue that will provide high-level engagement on economic 
issue between our two countries.
    If confirmed, I will work closely with the co-leads of this 
dialogue, Secretaries of Commerce and Treasury, as well as with the 
Secretary of State and USTR, and with other economic departments and 
agencies on the U.S.-China 100-day economic plan and beyond to correct 
the imbalances in our economic relationship.

    Question 25. Should we be looking at additional areas where the USG 
can self-initiate investigations, particularly on IP, where China is 
already found to be a leading infringer?

    Answer. The United States continues to engage China on a 
comprehensive set of IP infringement concerns catalogued in the Special 
301 Report.
    If confirmed, I will work closely with the U.S. Trade 
Representative, Departments of Commerce, Treasury, and Homeland 
Security as well as with international partners to use our available 
tools to curb illegal IPR-infringing actions in and coming from China 
actions in order to protect American jobs, innovation, and U.S. 
economic prosperity

    Question 26. In 2016, China was placed on Tier 2 Watch List in the 
State Department's Trafficking in Persons (TIP) Report for the third 
consecutive year. The Trafficking Victims Protection Act requires a 
country that is ranked Tier 2 Watch List for two consecutive years to 
be downgraded to Tier 3 in the third year, unless the President waives 
the downgrade based on credible evidence the country has a plan that, 
if implemented, would constitute making significant efforts to bring 
itself into compliance with the minimum standards for the elimination 
of trafficking

   This year's TIP Report is due in June. What factors will you be 
        looking at when making your recommendation on a ranking to the 
        Secretary?
   How do you think the Report should be used with respect to China in 
        order to encourage them to take human trafficking more 
        seriously, and clamp down on exports made with forced labor, 
        some of which come to the U.S. market?

    Answer. The State Department is currently assessing China's efforts 
over the previous reporting period (April 2016--March 2017) to combat 
trafficking in persons for the 2017 TIP Report. China received a waiver 
in 2016 from an otherwise required downgrade to Tier 3 because China 
devoted sufficient resources to a written plan that, if implemented, 
would constitute significant efforts to meet the minimum standards for 
the elimination of trafficking. The United States continues to work 
with China to encourage improvements in their efforts to combat 
trafficking in persons. If confirmed, I will continue these efforts.
    The 2016 TIP report identified several priority areas that China 
should focus on to be upgraded. The first is increasing efforts to 
address forced labor, both by ending the use of forced labor in 
government facilities, such as drug rehabilitation facilities or 
detention centers. Second, China needs vigorously to investigate and 
prosecute human traffickers, including officials complicit in 
trafficking crimes. Third, China should update its legal definition of 
trafficking so that it is consistent with international law. Fourth, 
China needs to institute formal procedures systematically to identify 
and to expand victim protection services. Again, if confirmed, I will 
encourage China to make progress on all four areas.

    Question 27. Some press reports state that China has lent Venezuela 
over $60 billion over the past several years, most of it in exchange 
for future oil production. If Venezuela defaults on its international 
debts and a new regime takes power and seeks assistance from 
institutions that serve to help countries rebuild their economies--such 
as the IMF, World Bank, or Inter-American Development Bank--China, as a 
major creditor, would have to be part of any solution that would put 
Venezuela back on a path to economic growth. As you know, the 
Venezuelan economy is already collapsing, and further deterioration 
risks sparking even greater flows of refugees toward the United States 
and could also present a humanitarian crisis.

   What role do you think you will play in serving as an interlocutor 
        with the Chinese to address the looming crisis in Venezuela, a 
        crisis which could have profound security and economic 
        implications for the United States and the entire Western 
        Hemisphere?

    Answer. China has significant economic ties with Venezuela, and has 
lent Venezuela tens of billions of dollars under an oil-for-loans 
arrangement since 2007. Both countries are important to one other, for 
oil, financial, and commercial reasons. The United States and China 
should share an interest in a stable and prosperous Venezuela. If 
confirmed, I will urge Beijing to apply its substantial economic 
leverage to work with all parties to achieve the political and economic 
reforms necessary to bring about a more stable outcome in accordance 
with the Venezuelan constitution.

    Question 28. President Trump promised to fight for American workers 
in the face of China's unfair trade advantages, including its 
deplorable record on labor standards. The ambassador to China should be 
someone who will advocate for the American worker and endeavor to lift 
labor standards worldwide. As Governor you recently signed two bills, 
one that sharply curtailed collective bargaining rights and another 
that reversed the ability of counties to implement minimum wage and 
paid family leave requirements. Some groups have therefore argued that 
you cannot be an effective advocate for worker rights in China when you 
have supported legislation to strip worker rights at home.

   How do you plan to present yourself as a credible advocate for 
        worker rights given your record of supporting efforts to 
        curtail workers' rights to collectively bargain?

    Answer. Protections for workers are an integral part of a society 
based on the rule of law. The United States has repeatedly engaged with 
China on ending practices such as forced labor and labor trafficking, 
and on updating Chinese laws to conform to international obligations 
and best practices in labor standards and workplace safety. If 
confirmed, I will continue pushing China to adopt robust, common sense 
protections for its workers.



                               __________


           Responses to Additional Questions for the Record 
    Submitted to Hon. Terry Branstad by Senator Christopher A. Coons

    Question 1. As you know, your fellow Iowan--Tom Vilsack--
established the Strategic Agricultural Innovation Dialogue (SAID) as a 
bilateral forum to resolve China's trade barriers to U.S. biotech 
traits. He worked hard to secure China's approval of U.S. biotech 
applications, and he thought he had secured a commitment from China to 
reform its regulatory system. Unfortunately, China didn't follow 
through. Last November, I signed a Senate letter--along with 36 of my 
colleagues, including Senators Portman, Gardner, and Isakson--to 
President Obama asking him to prioritize biotech approvals in the 
December meeting of the Joint Commission on Commerce and Trade (JCCT). 
Once again, these efforts proved fruitless.

   Will you make approval of these overdue applications a priority in 
        the new 100-day plan the administration is negotiating with 
        China?

    Answer. I have a keen understanding of the important role biotech 
plays to our farmers.
    If confirmed, I will work closely with Secretary Perdue as well as 
other U.S. agencies to press China to expeditiously approve long-
standing permits for U.S. biotechnology products. I will also continue 
to push China for shorter and more efficient timelines for scientific 
review and approval of biotech products. Biotech approvals are a 
priority for me, and one I will press hard to resolve, including 
through mechanisms like the 100-day plan.

    Question 2. What will you do to make sure China finally follows 
through on its commitments? In particular, China has sat on a few U.S. 
biotech applications, and approval of those applications is long 
overdue.

    Answer. If confirmed, I will work closely with Secretary Perdue as 
well as other U.S. agencies to press China to expeditiously approve 
these long-standing permits for U.S. biotechnology products. I will 
push China for shorter and more efficient timelines for scientific 
review and approval of biotech products. Through the Comprehensive 
Economic Dialogue, multilateral engagement, and my own meetings, I will 
make it my priority to engage intensively with China at the highest 
levels on this and other pressing economic issues.

    Question 3. The former Secretary of Agriculture Tom Vilsack worked 
tirelessly to press China on commitments it made two years ago on 
approving new biotechnology traits for import. He expressed 
disappointment at the lack of progress last November, after the US-
China Joint Commission on Commerce and Trade (JCCT) meeting, when there 
was still no real commitment to approving any of the nine traits then 
awaiting approval or to improving their general biotechnology trait 
import approval process.

   Will you and your colleagues in the new administration pick up 
        where Secretary Vilsack and President Obama left off on this 
        important trade issue?

    Answer. If confirmed, I will work closely with Secretary Perdue as 
well as other U.S. agencies to press China to expeditiously approve 
these long-standing permits for U.S. biotechnology products. If 
confirmed, I will push China for shorter and more efficient timelines 
for scientific review and approval of biotech products. Through the 
Comprehensive Economic Dialogue, multilateral engagement, and my own 
meetings, I will make it my priority to engage intensively with China 
at the highest levels to approve all the pending applications and adopt 
a transparent and predictable approval process for biotechnology 
imports.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Hon Terry Branstad by Senator Cory A. Booker

China in Africa
    Question 1. As you know, China has become a major economic player 
in Africa over the past two decades. Sino-African trade has grown 
exponentially, and China has become a key provider of contracted 
services in Africa, notably in the construction and infrastructure 
sectors. Chinese firms are also directly investing in African firms, 
property, and other assets, and view Africa as an emergent consumer 
market with high growth potential.
    Meanwhile, the U.S. has conditioned aid on governance or economic 
reform and human rights performance. How would you compare the 
approaches of the United States and China to addressing these issues 
areas and challenges in Africa?

   To what degree do you view China and the United States as rivals in 
        Africa, or as playing complementary, and potentially 
        collaborative roles in Africa?

    Answer. China is increasing its engagement in Africa reflecting its 
growing economic interests. U.S. companies and U.S. corporate culture 
have a good story to tell in Africa, and when given the choice, African 
countries prefer American companies because of the values we bring. A 
number of U.S. initiatives in Africa, such as the President's Emergency 
Plan for AIDS Relief (PEPFAR), Power Africa, and peacekeeping training 
programs provide critical assistance to the region while enhancing U.S. 
soft power.
    That said, engagement in the region is not a zero-sum game and 
there is a place for multiple players as long as they are promoting 
sustainable economic development and political stability. U.S. 
cooperation with China helps protect the interests of our African 
partners. The United States and China, for example, supported African 
Union efforts to establish the Africa Center for Disease Control to 
strengthen health systems across the continent and address health 
crises like the 2014 West Africa Ebola crisis.

    Question 2. What, if any, scope is there for U.S.-Chinese-African 
trilateral cooperation with respect to security challenges, socio-
economic development, and business and trade in Africa? Should the 
United States view--and potentially respond to--China's extensive trade 
and comparatively more limited assistance efforts in Africa, as well as 
its political outreach efforts in the region?

    Answer. There are abundant economic and infrastructure needs in 
Africa, and China can play a constructive role. If confirmed, I will 
work to encourage China to engage on the basis of internationally 
accepted standards and time-tested safeguards for infrastructure 
investment. The United States and China have enjoyed limited 
cooperation in areas including promoting peace and security, enhancing 
African peacekeeping, strengthening health systems, encouraging 
improved regulatory and investment climates, and combatting wildlife 
trafficking. If confirmed, I will continue to advocate for U.S.-China 
cooperation in Africa.

President's Personal Business Interests in China
    Question 3. As you know, shortly after President Trump won election 
China granted the Trump Organization a number of valuable trademarks 
that they had been seeking for years. More recently, China granted 
three trademarks to Ivanka Trump, on the very day that President Xi met 
with the President.

   What is your understanding of the role of the political leadership 
        of China in influencing bureaucratic decision-making?

    Answer. As a private U.S. citizen, I am unable to judge accurately 
the portion of Chinese decisions that are subject to political 
considerations rather than merit.

    Question 4. Given that Chinese courts and bureaucracy serve the 
will of the ruling Communist Party, can it credibly be argued that the 
timing of these trademark grants was mere coincidence?

    Answer. As a private U.S. citizen, I have no direct knowledge of 
the decision-making process the Chinese Government followed in this 
instance. I cannot accurately speculate on the motivations of the 
Chinese Government in this instance.

    Question 5. As ambassador, how will you assure that American 
trademark filers are treated fairly and with integrity, and their 
applications judged by Chinese officials properly and on the merits?

    Answer. If confirmed as ambassador, I will seek a fair and 
equitable treatment of Americans seeking intellectual-property 
protections from the Chinese Government and for the general protection 
and respect of U.S. intellectual property. I will seek for relevant 
applications by U.S. citizens and organizations be judged on their 
legal merits.

    Question 6. President Trump has signed an executive order to 
dismantle President Obama's climate change regulations, potentially 
undermining the ability of the U.S. to meet its commitments under the 
Paris climate change agreement.
    Meanwhile, the Chinese Foreign Ministry recently renewed China's 
commitment to the Paris deal, saying it was a landmark agreement that 
became reality through the hard work of the international community and 
that no matter how other countries' climate policies change, China's 
resolve to deal with climate change will not change.
    I believe that we risk losing our leadership position in the 
international community if the Trump administration continues moving in 
the wrong direction on climate policy and defaulting on our promises 
under the Paris Agreement.

   Will you use your position as ambassador to advocate for working 
        with China to aggressively reduce carbon emissions?

    Answer. If confirmed, I will act to protect and advance U.S. 
national interests in all matters, including climate change, in China.

    Question 7. As ambassador to China, will you commit to pushing 
Chinese leadership to address these serious issues with their 
international fishing fleet, including by cracking down on illegal, 
unreported and unregulated fishing by Chinese vessels and by lowering 
government subsidies to the fishing industry that are driving 
unsustainable fishing practices?

    Answer. I recognize that combatting illegal, unreported, and 
unregulated (IUU) fishing is an enormous challenge, and one the United 
States remains committed to addressing. Should I be confirmed, I will 
work to strengthen cooperation on measures to combat IUU fishing under 
bilateral frameworks and in regional fisheries management organizations 
and relevant international organizations.
    The United States and China hold regular bilateral consultations on 
fisheries management issues, and plan to do so again this year. The 
United States and China also have a longstanding shiprider agreement 
under the auspices of the U.S. Coast Guard for IUU patrols in the North 
Pacific Ocean. These are two examples of effective cooperation between 
our two countries, and should I be confirmed as ambassador, I would 
work to assist and accelerate Chinese efforts to combat IUU fishing 
both domestically and abroad.
    The United States and China are working with several other fishing 
nations to complete negotiation of a legally binding measure to prevent 
unregulated commercial fishing in the high seas portion of the central 
Arctic Ocean, and I will continue to push for this important agreement.



                               __________





                               NOMINATION

                              ----------                              


                          TUESDAY, MAY 9, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, Flake, 
Gardner, Young, Barrasso, Paul, Cardin, Menendez, Shaheen, 
Coons, Udall, Murphy, Kaine, Markey, Merkley, and Booker.
    Also Present: Senator Sullivan.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Thank you for appearing before the committee 
today, Mr. Sullivan, and your willingness to serve our country 
once again.
    The confirmation of a Deputy Secretary of State is one of 
the most important appointments this committee will consider. 
The person who occupies this position will serve as the chief 
adviser to Secretary Tillerson, as Secretary in his absence, 
and as a principal officer for management of personnel and 
resources at the State Department.
    Given recent management, budgetary, and information 
technology challenges, this is no small task. Fortunately, the 
President has nominated someone who has an extensive background 
in Federal service. Having served at the Department of Justice, 
the Department of Defense, and as Deputy Secretary of Commerce, 
I believe Mr. Sullivan has the knowledge base necessary to 
understand the inner workings of a large Federal bureaucracy 
and the capacity to manage multiple priorities at the deputy 
level. Mr. Sullivan also has developed a reputation in the 
legal field as an authority on trade and national security 
issues.
    If confirmed, Mr. Sullivan will be reentering government 
service at a highly precarious time in world history. From 
Europe to the Middle East to East Asia, we are witnessing a 
number of major threats to global security and stability.
    These events give rise to a common question: What will 
America's role be? We are at a crucial point where we can 
decide to lead from the front with bold action or simply 
observe what happens from the sidelines and hope for the best.
    It is my hope that we will choose to appropriately engage 
on the hard problems, that we will restore U.S. credibility, 
and that we will provide strong pragmatic leadership on the 
world stage.
    It is also mandatory that the person who fills this 
position understands not only the importance of this office to 
the day-to-day operations of the department, but also the 
responsibility of keeping this committee fully informed of the 
department's operations, plans, and policy objectives as we 
exercise our oversight authority.
    I have spoken with Mr. Sullivan in private about the need 
for us to have candid responses to our questions, both today 
and in the future, if he is confirmed by the Senate.
    We are here today to examine Mr. Sullivan's nomination, and 
I look forward to hearing from him about this exceptionally 
important position.
    Typically, we would allow visiting Senators to go ahead and 
speak, but do you want to go ahead?
    Senator Cardin. I am more than willing to yield, if it is 
all right with you, Senator Sullivan? It is a little confusing 
there, with the Sullivans. [Laughter.]
    The Chairman. They are not related, I understand.
    Senator Cardin. I am willing to yield to Senator Sullivan.
    The Chairman. So we are honored to have Senator Sullivan 
who has served, I think, in the past with Secretary Sullivan. 
Thank you for being here and spending a few moments. Go ahead. 
As a courtesy, we will let you start right now.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, Ranking Member 
Cardin, members of the committee. It is an honor for me to come 
before the Foreign Relations Committee on behalf of my friend, 
a former colleague, a great American, Mr. John Sullivan.
    And despite what his last name would suggest, we are not 
related, although, as I mentioned to Senator Markey, probably 
somewhere back in the history of Ireland, maybe we were all 
related.
    Senator Markey. My mother is a Sullivan, too. [Laughter.]
    Senator Sullivan. That is why he is the biggest supporter.
    I met John when we first served in the administration of 
George W. Bush, myself as an Assistant Secretary of State 
working on economic, energy, trade, finance issues, and John as 
the Deputy Secretary of Commerce, and we worked on a number of 
foreign policy issues, particularly in the economic realm, 
together.
    You have all had an opportunity to see his resume, but I 
just wanted to highlight a few elements of his personal 
background and experience.
    John started out in public service as a law clerk for Judge 
John Wisdom on the Fifth Circuit Court of Appeals, and then 
later as a law clerk for Justice Souter on the U.S. Supreme 
Court. In 2004, Secretary of Defense Rumsfeld appointed John as 
deputy general counsel at the Department of Defense. He then 
moved to the Department of Commerce, where he served as general 
counsel, and then as Deputy Secretary.
    In the private sector, John currently co-chairs Mayer 
Brown's national security practice and serves as chairman of 
the United States-Iraq Business Dialogue. I mention these 
positions because I think we can all agree that American 
foreign policy is not just formed in the halls of Foggy Bottom 
but in the Departments of Defense, Energy, Commerce, Treasury, 
Justice, and many other agencies throughout Washington.
    It is in this vein that I believe John's substantial and 
diverse experience in the Federal Government will serve as an 
important complement to Secretary Tillerson's background in the 
private sector. John's experience also speaks to a greater 
understanding of what it takes to develop and execute U.S. 
foreign policy. He understands the importance of a robust 
interagency cooperation and coordination element of our 
government. He understands that our Nation's foreign policy is 
most effective when we combine all instruments of American 
power--diplomatic, military, energy, trade, private sector. He 
understands the critical importance of working with our allies 
around the world. And he understands what it means to honorably 
serve our Nation and has a career of doing so.
    And with a name like Sullivan, I am confident that John 
will also bring an Irishman's wit, charm, gift of gab, and 
pugnaciousness to the job, all important qualities of a 
diplomat.
    He is a man of integrity. I know he will serve Secretary 
Tillerson, the men and women of the Foreign Service and civil 
service, and this Nation well, and I urge you to support his 
nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you for coming and for your support. 
You can return to your other duties. Thank you so much, sir.
    Senator Sullivan. Thank you.


    [Whereupon, the hearing paused for a business meeting 
vote.]


    The Chairman. Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, first of all, let me thank 
Mr. Sullivan for his willingness to serve our country again. He 
seems to always want to come back to public service, and we 
very much appreciate that, a very talented person who has a 
distinguished record.
    And we thank your family for being willing to share you 
with our Nation, because in the position that you have been 
nominated for, it will take 110 percent of your time and 
effort.
    The challenges are great. And as Chairman Corker pointed 
out, so much goes through the Deputy Secretary. It is the 
person who really makes sure that that personnel systems are 
working, that the different regional areas are held 
accountable. It is a critically important position.
    I am going to use my time and my opening statement to share 
some of the comments that we talked about in our private 
meeting, because I think it is important at this nomination 
hearing to review a couple areas of concern that we have on the 
Trump administration and get your views as, if confirmed, a 
critical person in developing the foreign policy of our 
country.
    The first is what I led with in our private discussion, to 
talk about American values, American strength.
    I just came from an ADL meeting where we were talking about 
what makes America the strong Nation that it is. Yes, we have a 
strong military, and you helped to develop our strong military. 
That is important.
    We have a strong economy, and Senator Sullivan was involved 
in helping to develop that strong economy.
    But America's strength is in our ideals, our values, 
speaking up for democracy, speaking up for human rights, 
anticorruption, and embracing diversity.
    So I want to start with that because I want to have a 
dialogue, I hope today during this nomination hearing, as to 
how you value the importance of what America stands for. It is 
in context to Secretary Tillerson's statement last week that 
gives me grave concern, where he said that our foreign policy 
is out of balance, that our policies and values are not the 
same, and that if we condition our national security efforts on 
someone adopting our values, we probably cannot achieve our 
national security goals or our national security interests.
    That did not just concern a Democratic Senator from 
Maryland, but Senator McCain, who is well-respected globally 
for his commitment to American values, said, let me quote from 
Senator McCain's op-ed this week, ``In the real world, as lived 
and experienced by real people, the demand for human rights and 
dignity, the longing for liberty and justice and opportunity, 
the hatred of oppression and corruption and cruelty is reality. 
By denying this experience, we deny the aspirations of billions 
of people and invite their enduring resentment.''
    Senator McCain went on to state, ``Our values are our 
strength and our greatest treasure. We are distinguished from 
other countries because we are not made from a land or tribe, 
or a particular race or creed, but from an ideal that liberty 
is the inalienable right of mankind and in accord with nature 
and nature's Creator.
    ''To view foreign policy as simply transactional is more 
dangerous than its proponents realize. Depriving the oppressed 
of a beacon of hope could lose us the world we have built and 
thrived in. It could cost us our reputation in history as the 
Nation distinct from all others in our achievements, our 
identity, and our enduring influence on mankind. Our values are 
central to all three.``
    So I hope that we will have a chance to talk about this. 
This is not a hypothetical discussion. The Russian Federation 
has made a strategic decision to try to undermine our values as 
an effort to spread their influence in countries that currently 
have democratic values. So this is a current issue that is of 
grave concern.
    The second point I want to mention is our respect for 
involvement internationally. I say that in context to the fact 
that I led a 10-Senator delegation to COP21 to bolster U.S. 
leadership and provide calm and confidence in the United 
States' commitment to the global efforts to fight the 
existential threat of climate change.
    Now, we may disagree as to what the solution should be. I 
happen to side where science tells me the solution is, but we 
may have some different views on that. But I would hope that we 
would all agree that the United States must be at the table 
during these discussions and that we need to remain a part of 
the international family as we talk about these issues because 
without U.S. leadership, there will be other countries that 
will try to fill it.
    But we will be on the side of very few countries--I think 
Nicaragua and Syria are the only two countries that did not 
join COP21, and that is certainly not the neighbors that we 
want to associate ourselves with.
    So I hope we will hear your view for the importance of 
America's engagement globally, and that it would be wrong for 
us to sit on the sidelines as the international community 
discusses major issues.
    In that vein, we will talk to you about the President's 
skinny budget of a 36 percent cut in the State Department. We 
understand that Congress will draft its own budget, and I fully 
respect that, and I know the commitment of many members of this 
committee on both sides of the aisle to make sure that we have 
adequate resources to deal with our international commitments. 
But we want to hear your view as to America's engagement.
    Over and over again, we are involved in Afghanistan and 
Iraq. And they are talking about more of the soft power so that 
we can avoid military engagements in these countries. We know 
that in Africa, we need to do more in spreading democracy. We 
know about the famines and the challenges that we have to deal 
with there.
    So I would be interested in hearing your view as to how 
resources can be more efficiently spent and allocated, but that 
America's role will be one of increased influence, not reduced 
influence, in using what is under the State Department to 
provide stable neighbors for us to work with.
    And the last point, with what the chairman has said, in our 
private discussions, you made it clear that you would respond 
to requests by members of this committee. I would ask that that 
also be reaffirmed at today's hearing.
    Welcome. We look forward to your hearing, and we look 
forward to the continued partnership between this committee and 
the State Department.


    [Whereupon, the hearing paused for a business meeting 
vote.]


    The Chairman. We look forward to your opening comments. We 
hope you will welcome and introduce your wonderful family, who 
is with you today. We found that generally tones down committee 
members when you do that.
    And I do hope that you will affirm the fact that, if we 
have any questions, that you will promptly come before us in 
hearings in the future.
    With that, we look forward to your comments.

 STATEMENT OF HON. JOHN J. SULLIVAN, OF MARYLAND, NOMINATED TO 
                  BE DEPUTY SECRETARY OF STATE

    Mr. Sullivan. Thank you, Chairman Corker, Ranking Member 
Cardin, members of the committee. I am honored to appear before 
you as the President's nominee to be Deputy Secretary of State.
    I am joined by members of my family, my wife for almost 29 
years, Grace Rodriguez, the love of my life who has been my 
biggest supporter and best friend. We are also joined by two of 
our three children, Jack and Katie Sullivan. Our youngest, 
Teddy, is in the midst of final exams at college, and he is not 
able to join us today.
    But I am immensely proud of all of them. I hope there is a 
future for them in government service. I tell people that they 
are CIA, Cuban-Irish-Americans.
    Also, with us are my mother-in-law, Graciela Rodriguez, and 
my sister-in-law, Susan Rodriguez.
    It was an honor to be introduced by Senator Sullivan of 
Alaska, my dear friend and former colleague from the Bush 
administration. I am very thankful for his kind words.
    I want to express my enormous gratitude to President Trump 
and to Secretary Tillerson for the trust and confidence they 
have reposed in me. If confirmed, I pledge to devote all that I 
have to be worthy of that trust and confidence.
    By way of personal introduction, I am the grandson of Irish 
immigrants who arrived in South Boston in the 1880s. My 
parents, born in the 1920s, endured the Great Depression and, 
with millions of their generation, fought and won the Second 
World War. My father served in the U.S. Navy submarine service 
in the Pacific theater. My mother was a USO volunteer. We would 
now call them members of the Greatest Generation, but they 
never thought of themselves that way. They rarely spoke of 
their experiences during the war.
    One thing they did to make clear and instilled in me was a 
profound love of our country and respect for the high calling 
of public service. In the 32 years since my law school 
graduation, those values have animated my career.
    As Senator Sullivan mentioned, I have had the privilege of 
serving in a variety of positions in the U.S. Government. 
During that public service, I have learned a great deal about 
our country, its role in the world, and the functioning of the 
executive branch.
    But the most important lessons I have learned were humility 
and respect. As deputy general counsel of DOD, I saw firsthand 
the sacrifices of our men and women in uniform, and I learned 
to walk humbly through the halls of the Pentagon.
    I also learned respect for the career civil servants who 
rarely get the praise they deserve. The executive branch 
functions because of these men and women, many with decades of 
experience.
    A small number of public servants are accepted into the 
Foreign Service, which I know well. My uncle Bill Sullivan was 
a Foreign Service Officer for 32 years. He was the last U.S. 
Ambassador to Iran in the 1970s. It was his staff in Tehran 
that was taken hostage on November 4, 1979, a few months after 
the President had recalled him.
    It is an earlier date from 1979, however, that sticks in my 
mind, February 14, Valentine's Day. The U.S. Embassy in Tehran 
was overrun by a mob, and my uncle and his staff were seized. 
After a few hours, the Americans were released and the Embassy 
reopened. My uncle appeared in a picture on the cover of the 
next issue of Newsweek. He was surrounded by Iranians carrying 
assault weapons, one of whom was brandishing a bayonet in his 
face.
    That day in 1979 is significant not merely because of the 
drama in Iran but also because of a tragedy in Afghanistan. Our 
Ambassador Spike Dubs was kidnapped and assassinated in Kabul. 
Like my uncle, Ambassador Dubs was a U.S. Navy World War II 
veteran and a career Foreign Service Officer.
    The assassination of Ambassador Dubs and the seizure of our 
Embassy in Tehran on February 14, 1979, made a huge impression 
on me. I was a college student at the time. I have remained in 
awe of our Foreign Service Officers who venture into such 
dangerous places on our behalf. If confirmed, it would be my 
highest honor to work with the Foreign Service, the civil 
service, and the department's locally employed staff in the 
conduct of American diplomacy.
    In a world in which we face significant and enduring 
threats, these challenging times require leadership from the 
United States. As Secretary Tillerson said when he came before 
this committee, to achieve the stability that is foundational 
to peace and security in the 21st century, American leadership 
must not only be renewed, it must be asserted.
    And we will be aided in the assertion of that leadership by 
two of our abiding strengths, our allies and our values. We 
have relationships with allies in this hemisphere and across 
the globe that extend back many decades and have been the 
cornerstone of our national security in the post-war era.
    But our greatest asset is our commitment to the fundamental 
values expressed at the founding of our Nation, the rights to 
life, liberty, and the pursuit of happiness. These basic human 
rights are the bedrock of our republic and at the heart of 
American leadership in the world.
    Should I be confirmed, I commit to work with the members of 
this committee as the administration implements an American 
foreign policy that is worthy of our ideals as a people, ideals 
that have been handed down by the many generations that 
preceded us.
    Thank you for your time, and I look forward to your 
questions.
    [Mr. Sullivan's prepared statement follows:]


                     Statement of John J. Sullivan

    Chairman Corker, Ranking Member Cardin, members of the committee, I 
am honored to appear before you as the President's nominee to be Deputy 
Secretary of State.
    I am joined by members of my family: my wife for almost 29 years 
Grace Rodriguez, the love of my life, who has always been my biggest 
supporter and best friend. We are joined by our children, Jack, Katie, 
and Teddy Sullivan, of whom I am immensely proud. Also with us are my 
mother-in-law Graciela Rodriguez and my sister-in-law Susan Rodriguez.
    It was an honor to be introduced by Senator Sullivan of Alaska, my 
former colleague from the Bush administration. I am thankful for his 
kind words.
    I want to express my enormous gratitude to President Trump and to 
Secretary Tillerson for the trust and confidence they have reposed in 
me. If confirmed, I pledge to devote all that I have to be worthy of 
that trust and confidence.
    By way of personal introduction, I am the grandson of Irish 
immigrants who arrived in South Boston in the 1880s. My parents, born 
in the 1920s, endured the Great Depression and, with millions of their 
generation, fought and won the Second World War. My father served in 
the U.S. Navy's Submarine Service in the Pacific Theater. My mother was 
a USO volunteer. We would now call them members of the Greatest 
Generation, but they never thought of themselves that way. They rarely 
spoke of their experiences during the War.
    But one thing they did make clear, and instilled in me, was a 
profound love of our country and respect for the high calling of public 
service. In the 32 years since my law school graduation, those values 
have animated my career. In addition to stints in private law practice, 
I have had the privilege of serving in the U.S. Government: as a law 
clerk for Judge John Wisdom and for Justice David Souter, followed by 
senior positions at the Justice, Defense, and Commerce Departments.
    During my public service, I have learned a great deal about our 
country and its role in the world. Most significantly, my experiences 
have prepared me to serve in the position for which I recently have 
been nominated: Deputy Secretary of State. In both legal and policy 
positions, I learned the operations of the national security 
bureaucracy. As Deputy Secretary of Commerce, I was chief operating 
officer of a cabinet department and participated in the budgeting 
process with OMB. I also worked closely with the Department of State 
while leading trade missions and government delegations on trips to 
China, Pakistan, Germany, Iraq, Israel and the West Bank, Jordan, 
Georgia, Azerbaijan, Japan, and the UAE.
    But the most important lessons I learned were humility and respect. 
As Deputy General Counsel of DoD, I saw firsthand the sacrifices of our 
men and women in uniform. I learned to walk humbly through the halls of 
the Pentagon. I also learned respect for the career public servants who 
rarely get the praise they deserve. The executive branch functions 
because of these men and women, many with decades of experience.
    A small number of public servants are accepted into the Foreign 
Service, which I know well. My uncle Bill Sullivan was a Foreign 
Service Officer for 32 years. He was the last U.S. Ambassador to Iran 
in the late 1970s. It was his staff in Tehran that was taken hostage on 
November 4, 1979--a few months after the President had recalled him.
    It is an earlier date from 1979, however, that sticks out in my 
mind: February 14, Valentine's Day. The U.S. Embassy in Tehran was 
overrun by a mob, and my uncle and his staff were seized. After a few 
hours, the Americans were released and the embassy reopened. My uncle 
appeared in a picture on the cover of the next issue of Newsweek. He 
was surrounded by Iranians carrying assault weapons, one of whom was 
brandishing a bayonet in his face.
    That day in 1979 is significant to me not merely because of the 
drama in Iran, but also because of a tragedy in Afghanistan. Our 
Ambassador, Spike Dubs, was kidnapped and assassinated in Kabul. Like 
my uncle, Ambassador Dubs was a U.S. Navy World War II veteran and a 
career Foreign Service Officer.
    The assassination of Ambassador Dubs and the seizure of our embassy 
in Tehran on February 14, 1979, made a huge impression on me. I have 
remained in awe of our Foreign Service Officers who venture into such 
dangerous places on our behalf.
    If confirmed, it would be my highest honor to work with the Foreign 
Service, the Civil Service, and the Department's locally employed staff 
in the conduct of American diplomacy. In a world in which we face 
significant and enduring threats, these challenging times require 
leadership from the United States. As Secretary Tillerson said when he 
came before this committee, ``to achieve the stability that is 
foundational to peace and security in the 21st century, American 
leadership must not only be renewed, it must be asserted.''
    And we will be aided in the assertion of our leadership by two of 
our abiding strengths: our allies and our values. We have relationships 
with allies in this hemisphere and across the globe that extend back 
many decades and that have been the cornerstone of our national 
security in the post-war era. We have maintained and enhanced the 
relationships with our allies on the basis of our shared interests. But 
in many cases, we also share a commitment to the fundamental values 
expressed at the founding of our nation: the rights to life, liberty, 
and the pursuit of happiness. These basic human rights are the bedrock 
of our republic and at the heart of American leadership.
    Should I be confirmed, I commit to work with the members of this 
committee as the administration implements an American foreign policy 
that is worthy of our ideals as a people--ideals that have been handed 
down by the many generations that preceded us.
    Thank you for your time and I look forward to your questions.


    The Chairman. Thank you very much.
    Just one question from me. Do you commit to appear and 
testify upon request from this committee?
    Mr. Sullivan. I do, Mr. Chairman.
    The Chairman. With that, I am going to reserve my time for 
interjections, and turn to our distinguished ranking member, 
Ben Cardin.
    Senator Cardin. Mr. Sullivan, first of all, thank you for 
the testimony today, because you make it very clear at the end 
your commitment to American values. I appreciate that. I want 
to drill down a little bit on that, as I told you I would in 
our private meeting.
    I quoted from Senator McCain in my opening statement. I 
thought part of his experience and the way that he related to 
the fact that, as a prisoner of war, where he was trying to be 
broken by the enemy, it was the belief in our values that kept 
him strong, and that he felt that if America was transactional, 
that is how we do business rather than our values, then why 
shouldn't prisoners of war be transactional also and give up 
our country in order to achieve more comfort for themselves? 
They did not do that. Our soldiers do not do that, and our 
diplomats shouldn't do that.
    So I want to hear from you your commitment that, as we deal 
with Russia, as we deal with China, as we deal with countries 
around the world that we need to deal with that do not share 
our commitment to universal values, how America's foreign 
policy will always be framed in the values that have made us 
the great Nation we are.
    Mr. Sullivan. Senator, our values, as I said in my opening 
statement, are the bedrock of our republic. Before we became a 
world power, before we had the world-class military that you 
mentioned, before we became the economic juggernaut that we are 
today, we had our values.
    We achieved those successes because all of that was based 
on our values as Americans expressed in the Declaration of 
Independence and in our Constitution.
    Senator Cardin. So I am going to tell you some specific 
examples. You will have a chance to visit a lot of countries, 
if you are confirmed, visiting with the opposition, visiting 
with NGOs that are not particularly liked by the Government, 
visiting with people who have been persecuted by the Government 
is a clear sign that America stands on the side of universal 
human rights. Are you prepared to make those types of visual 
commitments so that our leadership is maintained?
    Mr. Sullivan. Not only am I prepared to make that 
commitment going forward, but I have made that commitment in my 
prior service in government.
    I am a Roman Catholic. When I travel, I always go to mass 
and meet with Catholics in the country in which I travel. That 
includes countries where the Catholic Church is, for lack of a 
better word, oppressed--in particular, China.
    Senator Cardin. Thank you. I appreciate that.
    Congress is taking steps to try to give the administration 
greater tools. In one case, the Magnitsky global human rights 
bill that was championed by Senator McCain and myself is now 
available globally, and it is a congressional initiative. It 
allows the State Department to promote names of individuals who 
have violated basic human rights for sanctions here in the 
United States.
    Our leadership has been recognized globally, and other 
countries are following suit, doing the exact same thing that 
America has done, but it requires a robust administration. Are 
you prepared to use that tool to advance American human rights 
and values?
    Mr. Sullivan. Yes, I am, Senator.
    Senator Cardin. There is legislation that we are working on 
in Congress to deal with corruption. We have a model dealing 
with trafficking, and I applaud many members of this committee 
that were deeply involved, including our chairman, who is 
passionate about stopping modern-day slavery. The TIP Report is 
a very valuable tool in advancing our goals on fighting 
trafficking in humans. We want to use a similar model to fight 
corruption.
    Corruption is growing, unfortunately, in too many places in 
the world. No country is immune from corruption. No country is 
immune from trafficking. There are countries that are taking 
steps to protect their country against trafficking, and there 
are countries that are taking steps to protect their country 
against corruption. Having guides in how we conduct our foreign 
policy because corruption is a cancer in a country that leads 
to instability, are you prepared to work with members of this 
committee on legislation that would give greater tools for 
evaluating how well we are doing in fighting corruption 
globally?
    Mr. Sullivan. Yes, I am, Senator.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Rubio?
    Senator Rubio. Thank you very much.
    Thank you, for your willingness to serve once again in 
government. I want to continue on the theme of human rights. I 
think it is an essential part of our foreign policy.
    I think you know this from your time in government and 
outside of it that so many of the groups around the world who 
are fighting for the principles that we as a Nation stand for--
democracy, free press, freedom of religion, freedom of 
expression--they look to America for inspiration.
    I have been touched deeply by examples of that just in the 
last 3 months. Sometimes you give these speeches on the Senate 
floor. We do not think anyone hears them, and then you get to 
interact with someone that was recently released from a prison, 
and they tell you that what we did in a resolution or in a 
hearing or on the Senate floor was impactful and ran counter to 
the oppressor's message to them that they do not matter to 
anybody, that nobody cares about you.
    And while I think it is important that we here in the 
Senate continue to stand for these principles, I also think it 
is important that we have a State Department that is structured 
in a way that shows that this is a priority of the United 
States. There is no shortage of these, obviously.
    In Iran, we know about their grotesque human rights record. 
In Syria, we have seen the horrifying crimes committed against 
innocent civilians.
    We also have challenges with some allies in the region. I 
think that is perhaps some of the messaging that the Secretary 
was pointing to. Egypt is an ally. It is also a human rights 
violator, and it is important for us as their ally to tell them 
that that is an unsustainable position moving forward. Saudi 
Arabia is a country we work with very closely, and yet it is 
not a human rights star, to say the least.
    In Asia, we obviously talk a lot about the North Korean 
nuclear weapon. We do not talk nearly enough about the forced 
labor camps that exist there, a horrifying reality. Of course, 
in China, we could have days and days of testimony about the 
thousands of political prisoners.
    In Europe, obviously, we are aware of Russia's horrifying 
human rights record. We have seen recently in the pro-Russian 
areas of Chechnya how LGBT gay men have been rounded up and put 
in jail, again, another horrifying instance.
    But in our own hemisphere, even as we stand now, we see 
horrifying human rights violations in Venezuela, dozens of 
people that have been in jail, some upwards of 3 years' total, 
ignoring the constitution of that country, the security forces 
firing on protesters in the street.
    And of course, one that I know is near to you and to me, 
the issue of Cuba, where we still, despite all the celebratory 
language about an opening, there are people in jail in Cuba, 
there are people being rounded up in Cuba, there are people 
being oppressed systematically in Cuba.
    I believe the Cuban people are deserving of freedom and 
democracy just like the people in the Dominican Republic have, 
just like the people in Haiti just had an election, just like 
the people in Colombia, just like the people--why are the 
Cubans any less worthy of those basic freedoms?
    And what I would ask you to share with the committee is 
what you shared with me on the issue of human rights, in 
particular with Cuba but broader. This is not just an issue 
that is of academic interest.
    In your own family, through marriage, you actually have a 
gentleman who experienced a horrifying violation of human 
rights, who experienced being jailed by an oppressive regime, 
who is a Floridian. You shared that story with me.
    To me, that is very important, because it tells me that we 
have someone here before us who understands human rights and 
oppression not because he read about it in a book, because he 
knows and loves someone who himself has been a victim of the 
denial of freedom. I would just invite you to share with the 
committee for a moment the story of this incredible man and the 
impact that he has had on your thinking with regard to all 
this.
    Mr. Sullivan. Thank you, Senator. You are referring to my 
wife and my mother-in-law's uncle, Jose Pujols, who was a 
political prisoner in Cuba for 27 years, over 27 years. He was 
one of the so-called plantados in Castro's prisons.
    Senator Rubio. Explain plantados.
    Mr. Sullivan. Plantados were those prisoners who refused to 
cooperate, refused to wear prison uniforms. They were planted 
in their cells. He was in solitary confinement for 7 years. He 
was sustained by his religious faith, his Catholic faith, his 
wife who, despite the fact that she had the opportunity to 
leave Cuba and come to the United States, stayed on the island 
so that she, in those few opportunities when she could, meet 
with him.
    He was released from prison a week after my wife and I got 
married in 1988, and he is still alive today. He is 92, almost 
93 years old. And he is a great inspiration to our family and 
an inspiration to me and someone that my experience with, in 
talking to him, inspires me to serve in the United States 
Government to ensure that our government provides the 
leadership that is necessary to protect human rights around the 
world, to protect men like Jose Pujols.
    Senator Rubio. I would just close by saying, as proof that 
there is justice in the universe, Jose is alive and his 
oppressor is dead.
    Mr. Sullivan. Amen.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman.
    Thank you, Mr. Sullivan, for your willingness to return to 
government service and for your strong assertion of your 
commitment to our basic values and for your willingness to take 
up this work on behalf of the American people. I am encouraged 
by your statement in your opening that you have remained in awe 
of our Foreign Service Officers who venture into dangerous 
places on our behalf, and I am encouraged by the stories you 
shared with me and that you just shared in response to Senator 
Rubio's questioning.
    So I look forward to working with you and to finding ways 
that we can together continue to speak up about human rights, 
about democracy, to meet with and to advocate for the Foreign 
Service Officers around the world who today are a little 
anxious about their place in the State Department and are 
looking for clarity about support for their service and their 
mission.
    Just three quick questions, if I might. We talked a little 
bit about your service in the Commerce Department.
    How do you view the Power Africa initiative? I think it has 
been a successful public-private partnership that helps bring 
private sector ingenuity and effort into the basic development 
challenge of infrastructure on the continent. Is that something 
that you think the Trump administration might well embrace and 
continue to move forward?
    Mr. Sullivan. Yes, Senator. I agree, and we discussed that 
yesterday in our meeting.
    I would also add that we discussed sub-Saharan Africa as a 
place that we cannot lose sight of, of the opportunities that 
are there, both for the sake of promoting human development, 
economic development in those many countries, but also as 
protection of U.S. interests, both national security and 
economic prosperity. So I look forward to working with you on 
that, Senator.
    Senator Coons. Thank you. One of the things I am concerned 
about is that, in the absence of Russia paying some price for 
its interference in our 2016 election, arguably in France's 
election just this past week, and potentially in the election 
in Germany that is upcoming, that they will simply continue and 
become more aggressive and more robustly engaged.
    How do you think we could best deter Russia from future 
cyberattacks and efforts to subvert democracy throughout our 
Western European allies and here in the United States?
    Mr. Sullivan. Well, Senator, it is a persistent threat that 
we face, most recently from Russia in our election, and, as you 
mentioned, in the elections in Europe and France and the 
Netherlands, and upcoming elections in Germany and Italy next 
year or maybe later this year.
    As the Secretary has said--Secretary Tillerson has met with 
Foreign Minister Lavrov, with President Putin, raised these 
issues directly with the Russians. I believe we have to be 
robust in our response to this intrusion into our democracy 
when we talk about basic human rights. Our republic is premised 
on a representative democracy. Interference with our political 
processes is simply unacceptable. It is a profound threat to 
our way of life, and we need to respond as robustly as we can, 
using all of the means that we have at our disposal.
    Senator Coons. I am encouraged to hear you say that, 
because I have heard expressions of concern from 
representatives of some of our European allies, particularly 
those closest to Russia geographically, who say that if we are 
not going to stand up and defend our democracy, how can they 
count on us to defend theirs, and that sense of uncertainty 
about our future actions I think makes all of us weaker.
    Last, what do you think we should be doing to restrain 
Iran's destabilizing actions in the Middle East and throughout 
the region? I think they continue to engage in destabilizing 
actions throughout the region, in Yemen, in Syria, in Iraq, and 
elsewhere. And coming up with a sustained, bipartisan approach 
to Iran is I think one of our major foreign policy challenges.
    Mr. Sullivan. I agree, Senator. Iran policy is currently 
under review in the administration. I would say that Iran has 
been a persistent threat to U.S. national interests, national 
security interests in many areas, including those that you 
mentioned.
    The Secretary has sent a letter to this committee regarding 
Iranian compliance with the JCPOA. I thought Secretary Mattis 
best characterized the JCPOA in his testimony before the Armed 
Services Committee, in which he described it as an imperfect 
arms control agreement, not a treaty of friendship.
    We have a lot of other problems that we need to address 
with Iran beyond the JCPOA and their nuclear program. We need 
to make sure that they comply with the terms of that agreement, 
but we have a number of other problems that we need to address 
with them, whether it is their sponsorship of terrorism, human 
rights in their own country, ballistic missile programs, the 
list goes on.
    Senator Coons. I agree, and I look forward to having you 
testify before this committee in the future and to hearing that 
you visit with Foreign Service Officers as well as with the 
political opposition, human rights activists, and NGOs in your 
travels around the world. Thank you, Mr. Sullivan.
    Mr. Sullivan. Thank you.
    The Chairman. Senator Flake?
    Senator Flake. Thank you.
    I appreciated the opportunity to meet with you and also to 
hear your testimony here, your willingness to serve.
    I enjoyed the discussion that Senator Rubio had with regard 
to Cuba. Many of us feel strongly about ways that we can hasten 
change in Cuba and move toward democracy. I happen to think 
that some of the measures taken by the last administration with 
regard to allowing Cuban-American travel, allowing increase in 
remittances, have allowed a lot of Cubans--I think we have gone 
from virtually very little Cuban employment outside of the 
Government sector to today about one in four Cubans employed in 
the so-called private sector in Cuba, running bed-and-
breakfasts or private restaurants or beauty shops, auto repair 
facilities, and have some modicum of independence from the 
Government, more than they had before. I think that is a good 
development. There are obviously still human rights abuses that 
take place.
    The question is, how do we best ensure that freedom is 
hastened and we move forward? I know that those policies are 
being reviewed, and I hope that we will look at the whole 
picture there and see where we are as opposed to where we were 
a few years ago. We have had policies in place for 50 years 
that have not moved the needle very far until now.
    With regard to the State Department and some of the things 
that you will be involved with, there was a report recently 
noting that there are 67 special envoy, special representative 
and special coordinator positions at the department, most of 
them outside of the regular bureaus and a handful of them, only 
a handful of them, approximately 20, have been authorized by 
Congress.
    From a managerial perspective, how do we deal with this? Is 
there going to be an effort to wind down some of these special 
envoy positions?
    Just as a matter of note, they seem pretty duplicative. For 
example, we have a special envoy and coordinator for 
international energy affairs, as well as the special envoy for 
climate change and the special representative for environmental 
and water resources. This is over and above any other positions 
that we have at State.
    Then we have a special envoy for North Korean human rights 
issues and a special envoy for the Six Party talks and a 
special representative for North Korea policy. Again, this is 
all in addition to regular State Department positions.
    From a managerial perspective, how are we dealing with 
these special envoy positions?
    Mr. Sullivan. Thank you, Senator Flake.
    This is all part of Secretary Tillerson's review of the 
mission of the department with the intent of basically bringing 
the department into the 21st century to address the challenges 
we have now. He has reached out to all employees of the 
department, having listening sessions with employees of the 
department to discuss the best ways to define and accomplish 
our missions.
    With respect to these special envoy positions you have 
mentioned, Senator Flake, my concern, without addressing any 
particular office, is that when an office like that is created 
outside of the chain of command in the bureaucracy, it removes 
some level of accountability for those individuals who have 
been nominated by the President, reviewed by this committee, 
and confirmed, whether they serve at the Assistant Secretary or 
Under Secretary level. We then appoint a special envoy for a 
particular issue who is outside that chain of command. This 
committee has not reviewed that person's qualifications.
    And it, in many ways, will undermine the leadership and 
authority of those individuals who have been put in positions 
of substantial authority because there is somebody outside that 
chain of authority who has responsibility for that narrow 
issue.
    Senator Flake. That is my concern as well. I hope that we 
can move forward and make some changes here. My colleague just 
mentioned maybe we need a special envoy for special envoys. 
[Laughter.]
    Senator Flake. But absent that, we have to get a handle on 
this. With only 20 of the 67 even authorized by Congress, and 
so many very duplicative, it would seem that a fully 
functioning, right functioning State Department would seek to 
get some of its power and authority back.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I would point out, it is not just 
the envoys but, in many cases, very, very large staffs that 
support them.
    We had testimony in a prior hearing from Republican and 
Democrat witnesses who had served at the State Department that, 
in many cases, these envoys were put in place to work around 
folks that otherwise could not perform in those roles. So I do 
hope you will look closely at that, and I appreciate the top-
to-bottom review that is taking place.
    Senator Menendez?
    Senator Menendez. Congratulations on your nomination. I 
look forward to continuing the conversation we started last 
week.
    Along with many others on this committee, I am deeply 
concerned about the lack of senior management positions that 
have yet to be filled at the State Department, and we welcome 
the opportunity to move forward with many more nominees, 
because I believe leaving senior positions that require Senate-
confirmed, empowered individuals vacant undermines the ability 
of the department to carry out its mission, which ultimately 
compromises our foreign policy and our national security 
objectives.
    So this is a department, for those of us who care deeply 
about foreign policy and the men and women who dedicate their 
lives to serving this country overseas, it is critically 
important that we see senior leadership who also value the 
mission of the State Department, will fight for its employees, 
its proper place in the national security apparatus, and its 
budget.
    So my question is, are you that person?
    Mr. Sullivan. I am, Senator.
    Senator Menendez. You are committed to those goals?
    Mr. Sullivan. I am committed to making the State Department 
the preeminent force to protect American values and promote 
American values in the world.
    Senator Menendez. So given your experience at the Commerce 
Department and in the private sector, you come with some degree 
of a greater business orientation toward foreign policy. One of 
the things that I found in my 25 years in Congress is that 
sanctions can be a powerful tool in terms of a peaceful 
diplomacy arsenal. I know that you have experience advising 
clients on sanctions compliance in Russia and Cuba, just to 
mention a couple.
    Do you believe sanctions are an effective tool for foreign 
policy?
    Mr. Sullivan. Absolutely.
    Senator Menendez. Do you believe that the network of 
sanctions that we have in place on adversarial countries like 
Russia and Iran should be kept in place at this time?
    Mr. Sullivan. I believe they should be reviewed to make 
sure they are adequate, kept in place and potentially ratcheted 
up as necessary.
    Senator Menendez. Okay. Now I want to echo the remarks of 
the ranking member. One of the hallmarks of my career has been 
human rights and democracy globally. Most of us who pay 
attention to foreign policy recognize that leading with our 
values, including prioritizing human rights in our diplomacy, 
is a critical part of promoting our national security.
    So I am really concerned about Secretary Tillerson's 
comments. I am also concerned that, notwithstanding his 
comments, I have not seen so far in the first 4 or 5 months 
human rights and democracy raised very often.
    There is no question that there are times that there may be 
an immediate national security goal that must take precedence. 
But history has proven unequivocally that countries who share 
our values of human rights, democratic governance, fundamental 
freedoms, make more stable countries. They make more prosperous 
countries. They are less likely to create war on their 
neighbors or potentially against us.
    Now we have somehow forgotten that history at times. We 
have engaged with dictators and tyrants. And in the short term, 
it may have served us. But in the long term, boy, are we paying 
huge consequences for it--huge consequences for it. And I could 
rattle off a series of countries in which we did that.
    If you are sitting in Combinado del Este in Cuba, believe 
me, you want someone speaking about human rights and democracy. 
If you are being human trafficked by some slave trafficker, 
whether for sex or labor, you want somebody speaking out about 
human rights and democracy. If you are struggling inside of 
your country in Southeast Asia to change the essence of your 
life under a government that is totalitarian, you want somebody 
to speak out about human rights and democracy.
    So I hope that what I heard you say to Senator Rubio, your 
comments to me, and others that have said for the record, I 
cannot emphasize it enough, because we need someone who has the 
moral clarity that Nikki Haley has. I voted for her even though 
I did not think she had a lot of foreign policy experience, or 
any. I am not sure I would have hired her for my senior foreign 
policy person, but I think she is outstanding. But she is moral 
clarity. That moral clarity can ultimately drive us in the 
right direction, and I hope that you have that moral clarity as 
the number two person at State Department.
    Mr. Sullivan. Thank you, Senator.
    The Chairman. Just on that note, we had some issues, and we 
have had to continuing discussions on the TIP Report. I think 
most of us felt like political interference took place to 
accommodate the TPP as it relates to certain countries on the 
TIP Report itself. As a matter of fact, I am pretty certain 
that that did occur.
    Since that time, we have had a much different relationship 
with the State Department under two administrations as it 
relates to that. I just wish and hope you will confirm the fact 
that you will do everything in your power to assure us that the 
TIP Report will be done with the utmost integrity, and, when 
you meet with foreign officials, it will be an issue that you 
bring up when that is necessary.
    Mr. Sullivan. I will, Senator. I know that Secretary 
Tillerson feels that way as well, as he said to this committee.
    The Chairman. Okay.
    Senator Young?
    Senator Young. Mr. Sullivan, I enjoyed our visit together 
in the office. Thank you again for your interest in serving.
    There is a matter that has come to my attention since our 
meeting that I would like to bring up in this hearing. On April 
21st this year, the Ethiopian Government issued an order to 
suspend indefinitely international adoptions from their 
country. According to our State Department, this has left 
dozens of U.S. families in the late stages of the adoption 
process unable to obtain the necessary paperwork to bring home 
their legally adopted children.
    This includes the Oren family from my home State of 
Indiana. They have successfully adopted their son under 
Ethiopian law but are unable to bring that son home to Indiana 
because of the Ethiopian Government, which is unwilling to 
issue the paperwork necessary to receive an exit visa.
    As a father of four young children, I take this especially 
seriously, as all Americans should. In an email this morning, 
Mrs. Oren, wrote the following, ''We met, interacted with, and 
began the attachment process with our son while we were in 
Ethiopia. He is almost 4 years old. He knows we are his parents 
and that he was supposed to come home with us on our trip. He 
was upset and confused when we had to say goodbye, leaving him 
in an orphanage while we had to return to the United States 
without him.``
    Now I had an opportunity yesterday to speak with the 
Ethiopian ambassador about this issue. My hope is that it can 
be resolved quickly.
    So, Mr. Sullivan, if it is not resolved quickly, once 
confirmed, will you work with my office to not only elevate 
this issue but to make clear to the Ethiopian Government at the 
highest level that this is important, that we need to resolve 
this issue, and we need their assistance, especially for 
families like the Orens who have already legally adopted their 
children when this order was issued?
    Mr. Sullivan. Senator Young, if confirmed, I would be 
honored to do so.
    Senator Young. Thank you.
    Mr. Sullivan, I am a strong supporter of the international 
affairs budget. I have made that really clear, as have so many 
of my colleagues on this committee. As of yesterday, the 
Government Accountability Office lists 132 recommendations, 
including 22 priority recommendations, for the Department of 
State that have not been implemented or fully implemented.
    Some of these open recommendations go back to 2011. Among 
other issues, these recommendations relate to important topics 
such as international food assistance, human trafficking, fraud 
oversight, management challenges, diplomatic security, North 
Korean sanctions, and terrorism. In order to maintain strong 
support for international affairs among the American people, 
they are going to insist upon proper and responsible 
stewardship of every single dollar we spend on that account.
    So, Mr. Sullivan, as a nominee to serve as Deputy Secretary 
of State, which at least historically has played a very 
important role with respect to some of these management and 
budgetary challenges, do you agree that this is important for 
this committee to have full visibility on the status of these 
open recommendations?
    Mr. Sullivan. Yes, I do, Senator Young.
    Senator Young. Okay. That is why I, along with Senators 
Menendez, Rubio, and Coons, introduced legislation, S. 418, the 
Department of State and United States Agency for International 
Development Accountability Act of 2017.
    Mr. Sullivan, once confirmed, do you commit to providing, 
as this legislation asks that we do, providing to this 
committee and to my office without delay detailed written 
unclassified updates regarding the status of all open GAO 
recommendations for the Department of State?
    Mr. Sullivan. Senator Young, if confirmed, yes, I do.
    I took GAO reports, IG reports, very seriously when I was 
Deputy Secretary at Commerce, and I will do so as Deputy 
Secretary of State, if confirmed.
    Senator Young. Okay. And further, for any recommendations 
State has decided to adopt, will you provide a timeline for 
implementation and an explanation for any delay?
    Mr. Sullivan. Of course, Senator. I will consider that part 
of our interaction with you and members of this committee.
    Senator Young. And for those recommendations State has 
decided not to implement or fully implement, will you provide a 
detailed justification, sir?
    Mr. Sullivan. Certainly.
    Senator Young. Thank you.
    I have a bit of remaining time here. In your prepared 
statement, you mentioned the 1979 seizure of our Embassy in 
Tehran and the assassination of Ambassador Spike Dubs in 
Afghanistan. On March 9, the IG for the Department of State 
Steve Linick testified before the State and Foreign Ops 
Subcommittee of the House Appropriations Committee. In his 
written testimony, the IG cited systemic issues in the 
department related to physical security measures. The IG cited 
a lack of coordination and an inability to track and prioritize 
physical security needs.
    More than 4.5 years after the terrorist attack in Benghazi 
at our diplomatic facility, and with the events of 1979 in 
mind, would you agree that the Department of State can and must 
do better when it comes to physical security and emergency 
action plans at our posts overseas?
    Mr. Sullivan. Senator, I would have no higher priority, if 
confirmed as Deputy Secretary of State, then to protect our men 
and women that we send abroad on our behalf.
    Senator Young. Have you reviewed this IG testimony, sir?
    Mr. Sullivan. I have not, but will make that a priority, if 
confirmed.
    Senator Young. That was my follow-up. Thank you.
    I yield back.
    The Chairman. You agreed to a lot a couple questions back. 
Let me just ask you, do you have any sense of the contours of 
the top-to-bottom review that is taking place and any sense of 
what type of realignments might take place within the State 
Department?
    Mr. Sullivan. In my discussions with the Secretary, he has 
made clear that he has no preconceived ideas on what the 
outcome should be. He has started this interaction with all the 
employees of the department to get their feedback and their 
input. I look forward to working with him on that.
    The Chairman. Do you have any sense of when that will be 
complete?
    Mr. Sullivan. I have not spoken to the Secretary about 
that, but my goal would be to have it completed as quickly as 
humanly possible.
    The Chairman. Is that having any impact, from what you can 
tell, on appointing Assistant Secretaries and other positions 
there?
    Mr. Sullivan. I am not involved in the selection process 
now. My perception as an outsider is that any slowness in 
making appointments is not related to the review of the 
department's mission and its structure that is ongoing.
    I commit, if I am confirmed, to making sure that those 
personnel appointments are moved forward as quickly as 
possible.
    The Chairman. My sense is they have actually selected most 
of those positions prior to you being there. That is my sense, 
and they are going to be forthcoming soon.
    But you do not have any sense of when the top-to-bottom 
review will be complete and you will have a layout as to how 
the new State Department, if you will, is going to function?
    Mr. Sullivan. I have not spoken to the Secretary about the 
timing of what he thinks the timing should be. We have talked 
about the mechanics and the process that he is going through. I 
have not had that conversation with him yet, but I look forward 
to it and to also working with you and members of this 
committee on making sure that that review is done as 
expeditiously as possible.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman. I would be happy 
to pick up on that line of questioning.
    First, thank you for your willingness to serve. I really 
enjoyed our meeting together. Your resume is impressive, your 
willingness to come back into government to serve the country 
that you love.
    To be honest, your resume is maybe not the one that we had 
expected to receive for this position. We have a President who 
has no diplomatic experience, a Secretary of State who has no 
diplomatic experience. While you have extensive experience 
running the operations of government, you do not have direct 
diplomatic experience either. So these questions about the 
reorganization of the department, which I assume you will be 
riding herd over, are really critical given the fact that, I 
think as you have acknowledged, you are unlikely to be sent out 
around the world as a frontline diplomat, given that your 
responsibilities will largely be in helping to run the 
operations of a very large department.
    So you took this job understanding that there was a 
reorganization that was going to be undertaken. I think you 
have done a good job articulating what you think the core 
mission of the State Department is. But this reorganization is 
done under the principle that the State Department has departed 
from the core mission. That is what the Secretary of State has 
said, and his belief is that we need to get back to the core 
mission.
    So explain to me your view of how the State Department has 
departed from its core mission, thus necessitating this 
reorganization.
    Mr. Sullivan. I would characterize it, Senator Murphy--
first of all, thank you for our discussion yesterday. I very 
much enjoyed it.
    I think the world has changed in the 21st century, and our 
State Department and the way it is organized has not changed. 
The Defense Department has, in my experience in government, has 
reorganized several times in the same time frame in which the 
State Department has not.
    Let me give you an example of an area where I think we need 
to focus on management issues, and that is the intersection of 
our regional bureaus, which we need to have, obviously, and the 
functional bureaus that have been created and multiplied over 
time as issues have arisen. I think the interconnection between 
those two, and to make sure that they are united in promoting 
our common interests on national security and economic 
prosperity, is an area where we really need to focus.
    So it is not so much that--I think the world has changed. 
We have added functional bureaus, for example, as issues have 
arisen, but we have not integrated our approach to this new 
world with new technologies, new means of communication, new 
threats, transnational threats that are much different from the 
world that existed, say, in the mid-1990s.
    Senator Murphy. So I agree. I think that is exactly the 
problem. The world has changed, and while we have seen some of 
our adversaries beef up their military capacity, what has 
really changed is the panoply of nonmilitary threats or at 
least threats that are not conventional military threats that 
are presented to the United States--disease, epidemics, 
famines, online terrorist organizations recruiting lone-wolf 
attackers, global warming, creeping corruption.
    And yet what worries me is that, given the fact that the 
world has changed and all of these nonmilitary threats have 
multiplied, this reorganization essentially has been 
predetermined by a President who has called for a 30 percent 
reduction in the capacity of the State Department while calling 
for a $50 billion investment in the Department of Defense.
    So given the fact that the world has changed, and I think 
you would agree that the number of nonmilitary threats 
presented to the United States has multiplied, how can you take 
on a job of reorganization, which you have said is not 
prejudged in its outcome, given the fact that the United 
President of the United States, your boss and Secretary 
Tillerson's boss, is commanding you to conduct that 
reorganization through a means that results in thousands of 
layoffs and dramatic cuts to the department? How is the outcome 
here not predetermined that the reorganization is essentially 
just an excuse to slash and burn the department?
    Mr. Sullivan. Well, Senator, I would repeat that the 
outcome from the Secretary's perspective is not preordained.
    For example, on job cuts that you mentioned, I know from 
speaking to the Secretary, there is no decision made on, 
despite what has been reported in the press on particular 
numbers of job cuts and so forth, what the Secretary has 
undertaken is a review of the mission of the department to make 
sure that the workflow, the work product of that department, 
meets those missions and we are organized in a way to 
accomplish those missions in the most efficient and accountable 
way possible, and that is my commitment to you, Senator.
    Senator Murphy. Thank you very much. Again, I really 
appreciate your willingness to serve. This is a very tough job, 
but your willingness to continue to talk to us gives me 
confidence that we can build on the conversations we have had.
    Thank you, Mr. Chairman.
    The Chairman. If I could, personally, I think having top-
to-bottom reviews are good things for everyone. I will say the 
reason that the State Department is being cut by 30 percent in 
this initial budget is that the real drivers of our deficits 
are unwilling to be looked at. So the administration, appears 
to me, is looking at a department that many people around 
America believe does not spend its money well. For some reason, 
Americans think we spent 25 percent of our money on aid and 
other diplomacy efforts when we spend 1 percent.
    I think we have done a pretty good job recently causing 
people to understand the importance of this, and fortunately, 
our military generals have done the same. However, I do think 
it is incumbent on all of us to not just make sure we are 
spending the dollars well, and certainly food aid and reform 
and those kinds of things should be undertaken, but I think as 
a committee to point out that, to the extent that we do not 
carry out these activities, our men and women in uniform that 
we respect and admire are more likely going to be in harm's 
way. I think we have done a pretty good job of that recently.
    But let's face it, the skinny budget came out because this 
administration, nor Congress, is willing to deal with the major 
drivers of deficits. It was a way of looking as if we were 
addressing deficits when we are really not. That is what is 
happening here, and I think it is incumbent on us to understand 
that is what is happening.
    Senator Paul?
    Senator Paul. Congratulations on your nomination, and 
welcome.
    There has been some discussion of sort of whether or not 
diplomacy or our country's policies--and the spreading of human 
rights and somehow the vanquishing of human rights abusers 
around the world is our policy, or whether it should be more 
realistic. There have been many voices saying it really needs 
to be the preeminent part of our foreign policy to vanquish 
those human rights abusers.
    But I guess while we are all for that, and while we are all 
for the notion that we wish there were not these human rights 
abuses around the world, sometimes I think that that policy 
leads to unintended consequences.
    So, for example, was Colonel Qaddafi a human rights abuser? 
I do not probably think there is any question he probably was. 
Would we wish there would be someone better involved in running 
Libya? Yes. But after his negotiating away his nuclear weapons, 
there are some ramifications that we are still living with. The 
West toppled him anyway.
    The message that sent to North Korea and the message that 
sent to Iran was, you know what? If you get rid of your nuclear 
weapons, you may well be toppled by the West.
    So I guess my question to you is, in balancing sort of the 
realism of how the world is and how we see it with human 
rights, would you say that there were unintended consequences 
of toppling Qaddafi in Libya?
    Mr. Sullivan. Absolutely, Senator. I think we are seeing 
them on a daily basis.
    Senator Paul. The same would go with regard to Iraq. 
Hussein was accused of gassing the Kurds, using chemical 
weapons. We have had another incident of that now. So everybody 
would say Hussein was a terrible person we should get rid of. 
The problem is it also led to unintended consequences.
    I think now the same people who wanted to get rid of 
Hussein now want to get rid of the Government of Iran, and Iran 
is emboldened because of the counterbalance of Iraq being gone.
    So to every action there is a reaction, an unintended one. 
I think that it is important that we have people involved in 
the State Department who understand that your job, as I see it, 
is diplomacy not war. That does not say we do not have military 
might and that we do not have the expression of that and the 
potential threat of that. But we have plenty of voices for 
that.
    My hope is that yours will be a voice for diplomacy and 
that you recognize that is your role or the job description or 
part of it, other than the management of the State Department, 
is that the State Department, in general, is supposed to be 
about diplomacy.
    If you could comment on sort of the role of the State 
Department and diplomacy in general terms, I would appreciate 
it.
    Mr. Sullivan. Certainly. Thank you, Senator Paul.
    Yes, I think that is emphatically the mission of the State 
Department. I think our Secretary of Defense, Secretary Mattis, 
would agree with that.
    I was originally nominated to work for Secretary Mattis at 
the Defense Department. I have a fundamentally different job at 
the State Department, fundamentally different mission, which I 
am committed to.
    With respect to our most recent discussions, I think that 
concerns about the use of military force in forcing regime 
change, for example, are very serious concerns. Use of military 
force should only be as a last resort when our national 
interests, our vital national interests, are at stake. But 
there is no diminution of our commitment to our fundamental 
values as Americans on which our foreign policy, our diplomacy 
that you and I agree should be at the heart of what we do, is 
based.
    Senator Paul. He and I agree. I think that is the point in 
the discussion of realism versus human rights. We should never 
shy away from saying and representing and being the symbol of 
freedom and liberty around the world, and justice. But at the 
same time, if we as our foreign policy say we are going to 
topple every regime that has human rights abuse, we will be at 
war with about 50 countries right now, and the unintended 
consequences, one of bankrupting the country, but two of 
getting us involved in wars for which we have no answer and 
there is no end, would be interminable.
    So I think the overall debate on realism, and many have 
tried to sort of cast aspersions on Tillerson's comments, but I 
think he was recognizing that there is a balance. We never give 
up on what we stand for and that we are this shining right as a 
free nation, but we also do not need to be naive enough that we 
think that we are somehow the descendants of Wilsonian ''let's 
make the world safe for democracy.`` If we are unwilling to 
look at the ramifications of our involvement around the world 
and particularly getting involved in another war in Yemen, 
whether it will be better or worse for us. I have cautioned 
that, in Yemen, I have a fear that we get involved in a war 
that both sides are beaten down and Al Qaeda shows up the way 
same way that ISIS showed up in Syria, ready to pick up the 
pieces of the chaos there. And if we do not think that through 
in advance and do not think that there has to be a diplomatic 
arm to our government, that we are making a big mistake.
    But I wish you well, and I hope you will be one of the same 
voices for diplomacy.
    Mr. Sullivan. Thank you, Senator.
    The Chairman. Thank you.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    Thank you for placing yourself forward for this 
responsibility.
    I wanted to ask you about the Paris Agreement that is under 
discussion right now. A tremendously high percentage of the 
world's governments have joined up for voluntary commitments to 
try to address the issue of carbon pollution and its impact on 
a warming planet.
    The question is, should we be in or out? A thousand 
companies have weighed in with the State Department to say we 
should be in, including oil companies ExxonMobil and 
ConocoPhillips. What do you think? Should we be in the Paris 
Agreement? Should we stay in or otherwise?
    Mr. Sullivan. Thank you, Senator Merkley.
    I understand that there is an ongoing discussion within the 
administration and within the interagency on continued 
participation in the Paris Agreement. There are complex issues, 
as you know better than I, including legal issues with respect 
to Article 4.11 and so forth.
    I have not been involved in those discussions, but what I 
would say to you, Senator, is my view as a general matter is 
that the United States is best served and its interests 
protected when it has a seat at the table, as a general matter.
    Not with respect to the Paris Agreement, I have not been 
involved in the discussions. I know that they are ongoing, but 
that is my general approach, Senator.
    Senator Merkley. That is the point that the Secretary of 
State has made, the point that he is arguing, that we should 
keep a seat at the table. In keeping a seat at the table, since 
the agreements are nonbinding, we can either seek to uphold the 
pledges that we made or we can ignore those. If we do stay at 
the table, should we seek to honor the pledges we made for 
reducing our carbon dioxide production?
    Mr. Sullivan. I understand that there is both a policy and 
a legal component to that question, Senator. I have not been 
involved in the discussions on that and have not studied those 
issues in sufficient detail to provide you with a definitive 
answer today. I would be happy, if confirmed, to focus and to 
participate in that discussion with you personally, if 
confirmed.
    Senator Merkley. Let me turn to North Korea. We have had 
statements coming out of the administration from different 
individuals, some arguing that primarily military pressure is 
going to make the difference, and we have the carrier strike 
group positioned off North Korea. We have others saying that 
the pressure from China is going to make the difference. We 
have others saying that we are laying the ground for 
negotiations.
    All of this creates a wide space for potential 
miscommunication, which could lead to events spiraling out of 
control. Should it be the State Department that is taking the 
lead in creating a clear, consolidated message to avoid 
misunderstandings?
    Mr. Sullivan. Yes, Senator. I think that is the primary 
function of the State Department, the Secretary of State, is to 
be the President's principal foreign policy adviser and 
spokesperson on U.S. foreign policy.
    Having said that, I think the Secretary's approach to North 
Korea, and he has been very clear about this, is that our goal 
is to have a denuclearized Korean Peninsula. That is our 
objective, and we are going to use all the means at our 
disposal, our national power, to accomplish that, in working 
with allies, partners, and others, and in using and having as 
an option the use of other means at our disposal at the Defense 
Department.
    Senator Merkley. The administration has been very 
complimentary of China, and China is applying pressure. That 
pressure has been directed more, however, to stop what they 
refer to as provocative acts, that is missile tests and nuclear 
tests, than denuclearization.
    Is China on board with the vision that America has of 
denuclearizing North Korea?
    Mr. Sullivan. I have not been involved in those 
discussions, Senator. I really know only what I read in the 
news media. But my understanding is that there has been 
positive feedback from the Chinese giving us hope that, as the 
Secretary has described it, leaning in on the Chinese and 
really trying to convince them how important it is for us and 
for them that the Korean Peninsula be denuclearized, it gives 
us some basis for, I will not say optimism, but at least for 
going forward with this policy.
    Senator Merkley. Daniel Runde was before the committee and 
he was noting--he is from the Center for Strategic and 
International Studies. He had a lot of concerns about USAID 
being merged with the State Department because USAID's vision 
for assistance is a longer term vision while often diplomatic 
circumstances require a vision of 6 months to 2 years versus a 
10- to 20-year vision.
    Should USAID be brought under the more direct influence of 
the short-term diplomatic mission?
    Mr. Sullivan. I know that that is a question that will be 
considered in the review that the Secretary has undertaken. I 
would say, Senator Merkley, that I have met with virtually 
every former Deputy Secretary of State to discuss this and 
other issues. I understand both the cultural and policy 
differences between AID and the Foreign Service. In some ways, 
it reminds me of the differences when I was at Commerce between 
our scientists at NOAA who do climate science, which is longer 
term, and the weather scientists who are focused on short-term 
weather. I understand that difference in the AID, State foreign 
policy context.
    So I would look forward to working with you and members of 
the committee as we consider the best way forward to implement 
our foreign aid policy in a way that promotes U.S. objectives, 
protects our interests, and does so in an efficient way, 
understanding the unique role of AID, the culture of the 
agency, and the important role that its employees provide.
    Senator Merkley. I will take that as at least a point that 
you understand the argument and the concern about diluting the 
vision and work of AID.
    Mr. Sullivan. Absolutely.
    The Chairman. If I could give an editorial comment, I get 
the sense there is no beginning point that says they should be 
combined. That is not where people are starting. That may be 
where they finish, but just for what it is worth, I do not 
think that is where they are beginning.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Mr. Sullivan, thank you very much for your willingness to 
serve, and thank you to your family for your willingness to 
serve alongside as well. So thank you for being here.
    Mr. Sullivan, do you believe in sustained and consistent 
American engagement around the globe?
    Mr. Sullivan. Yes, I do, Senator.
    Senator Gardner. What does that mean to you? What does 
''consistent and sustained engagement`` mean to you?
    Mr. Sullivan. Well, from the State Department's 
perspective, it means that we have a cadre of Foreign Service 
Officers, junior to senior, around the world representing U.S. 
interests, both on the national security sphere, political 
sphere, economics sphere, and we also have at our embassies 
foreign commercial service officers, whom I know well, who are 
employees of the Commerce Department, and when I was Deputy 
Secretary of Commerce worked very closely with them in 
promoting U.S. business interests abroad, protecting our U.S. 
companies doing business abroad.
    Senator Gardner. Thank you for that. I think the questions 
that Senator Murphy and Senator Young brought up about 
restructuring are important. Of course, when we talk about 
different bureaus, the East Asian Pacific Bureau, one of the 
most important bureaus around the globe that is dealing with a 
population that will soon be 50 percent of global population, 
the regional economy, which will soon be 50 percent of world 
GDP. Yet we have a bureau that is perhaps the lowest funded of 
all the bureaus around the globe.
    So I hope we can pay additional attention, as we 
restructure the State Department to reflect priorities, I hope 
that we will increase our priorities on Asia and the regions 
represented, because, again, it is where our treaty alliances 
reside, it is where the world's largest standing armies will 
reside, and it is where our trade is certainly growing and 
opportunities reside.
    I want to talk a little bit about North Korea as well. If 
you look at China right now with North Korea, it was recently 
announced that China's trade with North Korea grew in the first 
quarter of this year by nearly 40 percent. Iron exports to 
China from North Korea grew by 270 percent. Imports in China 
from North Korea grew.
    I met with Chinese officials, met with government 
officials. While there may be some positive signs over the past 
couple weeks that China is willing to implement the United 
Nations Security Council resolutions to a degree that they had 
not before, I was disheartened though in some of these meetings 
with Chinese officials that, when you have a long conversation 
about North Korea, their opinion seems to basically slide back 
into what it has been, and that is basically to allow North 
Korea to continue to develop a nuclear program with little 
pressure from China.
    China controls 90 percent of North Korea's economy. It is 
responsible for 90 percent of North Korea's economy. If China 
is serious about holding bad actors responsible for those bad 
actions, we cannot, as the United States, allow China to 
backslide into a posture that does not hold Kim Jong Un 
responsible for his bad actions.
    So I would hope that the State Department, Secretary 
Tillerson and yourself, would continue our pressure, 
abandonment of the failed strategic patience doctrine, and 
continue to apply pressure on the North Korean regime as well 
as China and other actors who are enabling the proliferation of 
North Korea's nuclear program.
    Do I have your commitment that you will continue to push 
for pressure on China?
    Mr. Sullivan. Absolutely, Senator.
    Senator Gardner. And I hope that that includes fully 
utilizing, following through with the laws that this Congress 
has passed under the North Korea sanctions act last year, 
unanimous last Congress, unanimous approval, bipartisan 
support, for a bill that says, if somebody is violating our 
actions, there is the mandatory investigation and mandatory 
placement of sanctions on that entity, be it in China, be it in 
North Korea or anywhere around the globe.
    Do I have your commitment that you will work with us to 
make sure that those laws are fully executed?
    Mr. Sullivan. Certainly, Senator. The Secretary has made 
clear that we will use all of the legal and policy authorities 
that we have to, as he put it, turn the dial on the pressure on 
China to make sure that we are leaning in, I think was the 
Secretary's expression, on China, leaning on China more than we 
ever have to make clear how important this is to the United 
States.
    Senator Gardner. I hope that in your interactions with 
Chinese officials, that you will make North Korea the highest 
priority possible because this concern that China will continue 
to slide back into its own doctrine of patience with North 
Korea.
    Mr. Sullivan. Yes, Senator.
    Senator Gardner. Thank you.
    And if you could report back to the committee, that would 
be truly critical.
    Again, what I do not want to see is any kind of a softening 
of our approach toward our allies or other nations around the 
globe to try to make China happy because we think they are 
going to take action against North Korea. Until they show that 
sustained commitment to pressuring North Korea, we should not 
be avoiding--news reports today cite that we may be forgoing a 
sale of arms to Taiwan. I do not know if that is true. I do not 
know if Taiwan has asked for that sale to be carried through or 
followed through. But I do not think that we should be forgoing 
that kind of a sale of defense equipment to Taiwan because we 
think China is going to suddenly change their behavior on North 
Korea, because they have not proven that it is going to be a 
sustained and consistent commitment to North Korea 
denuclearization.
    If you could talk a little bit about cybersecurity and 
where you think the cybersecurity priority will be within the 
State Department, I would appreciate it.
    Mr. Sullivan. Cybersecurity, we were talking about this 
earlier. The Russian hack of our election is an example of 
failed cybersecurity by the United States and the United States 
Government. Cybersecurity has to be one of our highest 
priorities at the Department of State and as an entire 
government.
    My experience in government when I was at the Commerce 
Department was, because of our lack of cybersecurity--now, this 
was 12 years ago--all our systems were open to a number of 
different foreign governments, such that we had to create our 
own internal operating system to communicate among ourselves 
and prepare documents for the Secretary to send to the White 
House because we had so little confidence that our system we 
were using was not penetrated.
    So cybersecurity is, for me, a very high priority.
    Senator Gardner. Thank you, Mr. Sullivan.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Mr. Sullivan, for your willingness to take on 
this responsibility.
    I just want to follow up a little bit on Senator Gardner's 
point about China. We had a hearing before the Armed Services 
Committee where experts testified that there are really only 
two things that the Chinese are going to respond to from the 
United States' perspective. One was whether we sanctioned their 
financial system in a way that meant doing business with North 
Korea would be a challenge for them. The other was that if they 
believed, truly believed, that there was the danger of war on 
the Korean Peninsula because of the statements from President 
Trump. So while I appreciate Secretary Tillerson's 
reassurances, there does not seem to be unanimous agreement on 
what is going to make China respond.
    I want to go, however, to questions about reorganization at 
the State Department. I serve as ranking member on the 
subcommittee that is tasked with oversight of the State 
Department and USAID, along with Senator Isakson.
    The department has not shared any information with me or 
with my colleague about what changes they are contemplating to 
the State Department and to USAID. Do you think it would be 
helpful for Congress to have a role or to at least have an 
understanding of what the State Department is contemplating in 
terms of a reorganization?
    Mr. Sullivan. Yes, I do, Senator.
    Senator Shaheen. Would you then commit to sharing with this 
committee the plans once they are--I do not want to say 
finalized, because I think it would be helpful to engage this 
committee in understanding what you are thinking about, because 
there are years of experience on this committee that might be 
helpful in looking at some of the analysis that the department 
comes up with.
    Mr. Sullivan. My experience in government, Senator, at the 
Justice, Defense, and Commerce Departments has been we have 
always been best served in the executive branch when we have 
consulted and coordinated with Members of Congress. In fact, as 
I was speaking to members of the minority staff yesterday, 
there have been occasions in my career in government when I 
have met with staff or members or Senators and had very 
productive conversations, gone back to my department and had 
people question, what were you thinking, going up to talk with 
those people?
    And my experience has been that collaboration, 
coordination, it is a way to anticipate problems, eliminate 
issues before they become problems. Now, we have to protect 
executive privilege, as I understand it.
    Senator Shaheen. Sure.
    Mr. Sullivan. Look, there are legal issues and so forth, 
but as a general matter, Senator Shaheen, my view is the U.S. 
Government is at its strongest when there is cooperation and 
coordination between the branches of government, particularly 
those in Article One and Article Two.
    Senator Shaheen. Thank you. I appreciate that, because, 
again, I know you have suggested that the reports are not 
correct that point to 2,300 people who are going to be let go 
at the department, and that USAID is going to be folded into 
State. But the lack of transparency, the lack of engaging 
people who are concerned about these issues is what leads to 
these kinds of reports, these kinds of concerns that you are 
hearing expressed today. So I would certainly hope that your 
point about engagement is one that you will follow.
    Not only have we been a leader around the world because of 
our values, but we have also as a country been a leader in 
promoting the rights and empowerment of women and girls around 
the world. That has been a good investment because what we know 
is that women tend to give back 90 percent of what they earn to 
their families, to their communities, and, ultimately, to their 
countries. Men only give back 35 percent. So it has been a good 
investment.
    I want to hear from you what steps you will take to ensure 
that we continue to support these global women's programs that 
I think have been so important, everything from child marriage 
to gender-based violence, to peace and security.
    And one of the other rumors about restructuring at the 
State Department is that the Office of Global Women's Issues 
will be eliminated. Can you tell me what you know about that 
and what your commitment is to ensuring that these programs 
continue?
    Mr. Sullivan. What I know about that, Senator Shaheen, is 
only what I see in the press. I am confident that no decisions 
have been made about whether that office or any particular 
office would be reorganized, eliminated, or anything done to 
it.
    With respect to women's issues and women empowerment, 
Senator Cardin is smiling at me, and I feel as though I should 
put a paper bag over my head as I am sitting in front of all 
the women in my family behind me. But it is an extremely 
important issue to me, but it is important to Secretary 
Tillerson as well who has been quite forceful in his statements 
about the very points you have raised, Senator, about the 
investment in women, women's health, women's education, women's 
empowerment, pay dividends many times over than other ordinary 
programs.
    So you have my commitment that that is something that will 
remain a priority of the department and, more importantly, the 
Secretary's commitment.
    Senator Shaheen. Thank you very much. I appreciate that. I 
appreciated the Secretary's talking about that and what he had 
seen in the private sector at his hearing. Then the next thing 
I saw was the report that the office was going to be 
eliminated.
    So, again, a little transparency and engagement I think 
would go a long way in reassuring people about what the intent 
is of the restructuring at the State Department.
    Thank you.
    The Chairman. If I could follow up, is it transparency or 
lack of progress? Has anything actually occurred relative to 
the streamlining, based on what you know?
    Mr. Sullivan. No decisions to my knowledge.
    The Chairman. I am not talking about decisions.
    Mr. Sullivan. Progress----
    The Chairman. Has it even begun?
    Mr. Sullivan [continuing]. Well, the Secretary's process of 
soliciting feedback from the employees has begun. His own 
staff's planning on these issues to tee up issues for his 
decisions, I believe, is underway. I have not participated in 
that, so I really do not have more definitive information for 
you.
    The Chairman. I think it would be good for the committee to 
know where the process is right now. Mary Waters behind you is 
your sherpa. And I know, with your confirmation hearing, it is 
not the time for you to commit to what you--I do not think you 
really know what is underway. I think they probably have not 
talked to you much about it so you cannot answer these 
questions.
    But, Mary, if you would, if you would get back with us this 
afternoon and share with us where you think that is? I know we 
have a committee meeting tomorrow afternoon at 5 with McMaster, 
and we could share it at that time. But I think, obviously, 
people would like to know.
    Senator Cardin. If I could just interject here just for one 
moment, this is what I wanted to come back to.
    Several members have asked you that we be engaged in how 
the State Department handles reorganization, and you have been 
very forthcoming about the value of that type of working 
relationship between Members of Congress, this committee, and 
the State Department. But I think the key point is that before 
decisions are made, it is important that that input be 
received.
    There are members of this committee who are prepared to 
support decisions that could be perceived to be pretty 
controversial. But if we read about it being done, you are 
liable to develop a political backlash that will make it 
impossible for you to achieve what you are seeking to do.
    So I would just urge you, at the earliest possible moment, 
to share information. It can be in an informal setting. We do 
not have to have formal hearings. But for us to understand your 
thinking and for you to get the benefit of our thinking as you 
are going through a reorganization at the State Department, to 
me, that is going to be critically important for the success of 
a reorganization.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thank you to the witness. I enjoyed our visit.
    Mr. Chair, I want to raise a concern at the start. We have 
a rule in this committee and I think generally that nominees 
should not presume confirmation, and it seems to go way beyond 
presuming confirmation to have a sign that says ''Senator 
Sullivan`` sitting there on the desk right next to this 
witness. [Laughter.]
    Senator Kaine. I hope he does not live in Virginia.
    Okay, now we will be serious. I did enjoy our visit.
    One of the things that you said, Mr. Sullivan, when we were 
chatting was that you spent some time meeting with former State 
Department Deputy Secretaries as you kind of scope out what you 
might do. Share some takeaways from those meetings that you 
have learned from them that would be helpful to you, should you 
be confirmed.
    Mr. Sullivan. Well, my immediate reaction to that question, 
Senator Kaine, is the passion that every one of those men and 
women, Republican, Democrat, have for the department and its 
employees, its Foreign Service Officers, its AID professionals, 
its civil servants. Everybody has enormous respect for the 
employees of the department.
    I know this from my own personal experience, but it is 
gratifying to talk to people and to hear them tell me about 
what a treasure we have in the men and women at the Department 
of State. And the fact that I am going to be able to go there 
and work with them has energized me and is my biggest takeaway.
    There have been a number of common concerns that have been 
brought up in my discussions. We talked about one of them today 
with respect to AID, concerns about morale issues at the 
department.
    And in talking with Secretary Tillerson, what I have said 
to these former senior State Department officials, he has been 
quite emphatic in our discussions about how much he respects 
the men and women in the department and how helpful they have 
been to him.
    So the universal theme is our biggest strength at the 
department is our people, and we have to utilize them and lead 
them in the best way possible.
    Senator Kaine. Talk a little bit about, since you have had 
multiple management experiences in both the Federal public 
service and the private sector, I am really interested in this 
morale question. A huge number of our State Department 
professionals live in Virginia or have homes in Virginia when 
they are abroad. I meet them all over the world.
    I think I told you, when I travel, I tend to meet with 
first and second tour FSO officers, and I always ask them the 
question, ''Congratulations, you achieved something pretty 
major by getting this job. What will make you decide to make it 
a career versus so frustrated that you leave?`` Then I just do 
not say anything else and I listen for an hour and a half.
    I am worried about some of the morale issues. The budget 
proposals could raise additional morale issues. I know a lot of 
colleagues have already asked you about that. But in your role, 
how would you approach the management challenge of trying to 
assure people and create a high morale organization, which is 
ultimately going to be a higher productivity organization.
    Mr. Sullivan. Senator, these are men and women who have 
dedicated their lives to public service and public service in 
dangerous places on our behalf. They are not in it for the 
money. They want to make a difference for the United States, 
for the world.
    What they are looking for is leadership and leaders who 
engage with them, explain what we are about, what this 
reconceptualizing the department is about, as the Secretary has 
said, making their jobs worthwhile for them personally. It is 
not about paying them more money, although everybody would like 
more money. They are in it because they want to do right by the 
United States and they want to do right by their own moral 
compass and their work to help people around the world.
    So providing that leadership, that they are involved in an 
enterprise that is doing good, that is protecting our interests 
and our values, that is the most important thing, and 
communicating that to them, not just letting them read about it 
in the paper but communicating it to them personally.
    Senator Kaine. Thank you. I will just ask about one kind of 
regional area that I like to focus on a lot, and that is the 
Americas. I think the U.S. in the last few years, the diplomacy 
involved with the Cuba deal, which was controversial but in my 
view has been a positive, the U.S. decision to diplomatically 
aid the peace negotiations in Colombia which have led to a 
ceasefire, the U.S. has played some important roles in 
diplomacy.
    I think that we often spend a lot of our State Department 
time flying east-west around the globe and not enough time in 
State or Defense or other areas focusing north-south. To the 
extent that you have had conversations either with the 
Secretary or the administration, what could you tell us about 
areas of potential focus in the Americas at the State 
Department?
    Mr. Sullivan. Thank you, Senator. We spoke about this when 
we visited earlier. The principals always have their time 
chewed up with whatever the hot topic is today--another missile 
test in North Korea, some atrocity in Syria, problems in 
Eastern Ukraine. My concern, and I have discussed this with the 
Secretary--I discussed it with Secretary Mattis when I was 
under consideration to be the general counsel of the Department 
of Defense--the United States needs to be able to walk and chew 
gum, for lack of a better term.
    As we discussed, the Roosevelt administration was able to 
fight wars in the Atlantic and the Pacific, and you quickly 
pointed out, and build the United Nations all at the same time. 
We have to be able to address these crises but also keep our 
eye on important areas, whether it is Latin America or sub-
Saharan Africa, so where just a little bit of effort by the 
United States can pay huge dividends. Meanwhile, we certainly 
have to keep our eyes on the high-profile national security 
priorities that are in the paper every day.
    So my commitment to you is, as Deputy Secretary, I will 
make sure to do my best to make sure that those areas of the 
world where we have very important interests are not neglected 
while everybody is being spun up over today's headline.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Secretary. The record will 
remain open until the close of business on Thursday. There will 
be numbers of written questions, and I know that you will be 
ready to answer those promptly.
    The Chairman. Short of something unusual happening, I have 
to tell you I look forward to very strongly supporting your 
nomination. I think you have acquitted yourself exceptionally 
well today. It is evident that, in your private meetings with 
members on both sides of the aisle, you have done the same 
there.
    I really do believe that the experiences you have had in 
other departments and the professionalism that you have as an 
individual have equipped you to be an exceptional Deputy 
Secretary.
    So we thank you for your willingness to serve, for your 
family's willingness to allow you to do something that we know 
is going to be a 7-day-a-week job, at least in the beginning, 
and probably all the way through.
    With that, the meeting is over.
    Mr. Sullivan. Thank you, Mr. Chairman.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
            Submitted to John Sullivan by Senator Bob Corker

    Question 1. In recent years the cost of building new embassies and 
consulates has risen while the pace of completion has slowed 
significantly when compared to just a decade ago.

   Will you commit to streamlining our embassy construction process, 
        evaluating the cost implications of using custom instead of 
        standard designs, and investigate the management problems in 
        the Bureau of Overseas Building Operations?

    Answer. Yes. The Department of State's Bureau of Overseas Buildings 
Operations has a critical mandate to provide and maintain secure 
facilities for Department staff and other federal agencies serving 
overseas under chief of mission authority.
    I am committed to ensuring that the Department's planning, design, 
and construction efforts will accomplish this critical mission. I am 
further committed to ensuring that we execute these projects 
efficiently and in accordance with industry best practices. We will 
provide the best value for the American taxpayer while constructing 
diplomatic facilities that prioritize security.
    I am aware that the Department has faced management challenges, 
including in implementing our overseas buildings program. If confirmed, 
I am committed to working across the Department on this issue.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to John Sullivan by Senator Benjamin L. Cardin

    Question 1. If confirmed, will you commit to making sure the 
Department responds promptly to letters and other requests for 
information from members of the Foreign Relations Committee?

    Answer. Yes.

    Question 1. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the executive branch?

    Answer. Yes.

    Question 3. As Deputy Secretary, what concrete actions do you 
envision taking to stop the closing of space for civil society abroad?

    Answer. The effects of closing civic space are felt across sectors, 
with humanitarian assistance providers, development practitioners, 
journalists, environmentalists, public interest lawyers, religious 
leaders, and others civic actors increasingly operating under threat.
    In the United States, we have achieved economic success because of, 
not despite, our values. Our values expressed in the Declaration of 
Independence and our Constitution are the bedrock of our republic.
    Should I be confirmed, I will work aggressively to advance human 
rights for everyone.

    Question 4. How should the United States deal with a situation in a 
foreign country, as in Turkey, where there is concern on the part of 
credible independent bodies that there were irregularities in the vote 
on the referendum to hand the President broad powers, and in which the 
President did everything possible to silence the voices of those who 
attempted to question a ``yes'' vote?

    Answer. For the United States, our values are the bedrock of our 
republic, and our greatest asset is our commitment to the fundamental 
values expressed at the founding of our nation. Therefore, we must 
ensure a foreign policy that is worthy of our ideals as a people, even 
when that means having honest but difficult conversations with allies, 
like Turkey, when there is a problem. The OSCE monitors, investigates, 
and reports on campaigns and elections in foreign countries, including 
Turkey, and will provide a report on problems and irregularities. This 
undertaking is very important, and I strongly support the difficult 
work of the OSCE election monitors. The United States looks to Turkey, 
a NATO ally and critical member of the international coalition to 
defeat ISIS, to protect the rights and freedoms of all citizens as 
guaranteed by the Turkish constitution and in accordance with Turkey's 
international commitments.

    Question 5. Describe your view of the United Nations' role in the 
world, and of America's place in and partnership with the United 
Nations in reducing instability and reinforcing international norms.

    Answer. The United Nations, created 71 years ago after the Second 
World War, is far from perfect. However, it remains important to U.S. 
national security interests. Even though the United States is the most 
powerful country in the world, we are more effective when we work 
multilaterally. Engagement in the U.N. multiplies our effectiveness and 
spreads the costs of international action.
    We must continue to partner closely with the United Nations. But we 
also need to work simultaneously to reform the organization in a 
serious and meaningful way that brings it up to 21st century standards. 
As you know, the Trump administration is very focused on U.N. reform, 
particularly on U.N. peacekeeping, but also on U.N. budget, management, 
and development issues and on ending the disturbing anti-Israel bias 
that permeates much of the U.N. system.

    Question 6. If confirmed, would you prioritize the promotion and 
protection of human rights and, if so, how?

    Answer. As I told Senator Rubio, my wife and my mother-in-law's 
uncle, Jose Pujals, was a political prisoner in Cuba for over 27 years, 
so human rights are a personal issue for me. I made a commitment to you 
at the hearing that I will work with civil society to promote and 
protect human rights. Among other things, the administration will use 
the Global Magnitsky Act. I am committed to making the State Department 
the preeminent force to protect American values and promote American 
values in the world. I will use a range of tools to work aggressively 
to advance human rights for everyone.

    Question 7. Are you willing to use State's role in approving arms 
sales as leverage to achieve such progress?

    Answer. If confirmed, I am willing to exercise State's authority to 
ensure arms sales are consistent with the foreign policy interests and 
values of the United States. As a part of every case-by-case review, 
and in accordance with law and policy, the decision to approve arms 
sales will take human rights into account.

    Question 8. There is a growing body of evidence that poor 
governance--marked by high corruption and lack of government 
transparency--is a key driver of fragility and political instability in 
many parts of the world today.

   Can you tell this committee what concrete steps you will take, if 
        confirmed, to promote good governance, anti-corruption and 
        transparency efforts around the world?

    Answer. Around the world, corruption saps economic growth, hinders 
development, harms American business competitiveness, destabilizes 
governments, and provides openings for dangerous groups to operate.
    If confirmed, I will prioritize the importance of combatting 
corruption and promoting good governance and transparency through a 
variety of means, including private diplomacy, public statements, 
targeted visa bans and financial sanctions, and pressure in 
multilateral forums.

    Question 9. Will you come before this committee for full, public 
hearings on the restructuring of State and USAID if major changes are 
proposed, prior to making such changes? What is your view on the 
proposed cuts to the State Department and foreign assistance budgets?

    Answer. If confirmed, I will come before this committee for full, 
public hearings on the restructuring of State and USAID if major 
changes are proposed, prior to making such changes.
    As Secretary Tillerson told the Department's workforce in a written 
letter, the State Department's budget request addresses the challenges 
to American leadership abroad and the importance of defending American 
interests and the American people. It acknowledges that U.S. engagement 
must be more efficient, that our aid must be more effective, and that 
advocating the national interests of our country must always be our 
primary mission. Additionally, the budget is an acknowledgment that 
development needs are a global challenge to be met not just by 
contributions from the United States, but through greater partnership 
with and contributions from our allies and others. The Secretary has 
initiated a process to draw a new budget blueprint that will allow us 
to shape a Department ready to meet the challenges that we will face in 
the coming decades. We will do this by reviewing and selecting our 
priorities, using the available resources, and putting our people in a 
position to succeed.

    Question 10. What is your view on the current number of vacancies 
in critical State Department leadership positions? How soon can we 
expect to see nominees for Assistant Secretary positions?

    Answer. As discussed during my confirmation hearing, I have not 
been involved in the selection process for nominees at the Department. 
However, my perception as an outsider is that any slowness in 
nominating individuals for positions is not related to the review of 
the Department's mission and structure that remains ongoing. 
Additionally, I committed in the hearing and recommit in writing, that 
if confirmed I will make sure that personnel vacancies are filled and 
nominations are moved forward as quickly as possible.

    Question 11. What do you believe is the purpose and mission for 
U.S. international Development Assistance and how valuable do you 
believe U.S. development assistance is to the U.S. foreign policy and 
maintaining U.S. leadership in the world?

    Answer. Development assistance plays a vital role in protecting 
U.S. national security by fostering stability, resolving conflict, 
responding to humanitarian crises, and ending infectious diseases. Our 
development assistance upholds America's moral leadership and advances 
our nation's ability to influence and shape world events consistent 
with U.S. interests and is an invaluable tool in our foreign policy 
toolkit. Our global engagement abroad depends on the day-to-day 
engagement and expertise of our development professionals at USAID, who 
promote resilient, democratic societies around the world through 
programs supporting agriculture, education, economic growth, and the 
rule of law.

    Question 12. Do you believe that U.S. interests are better served 
by prioritizing Foreign Assistance to serve political and strategic 
ends as opposed to address real world needs?

    Answer. If confirmed as Deputy Secretary of State, my foremost 
responsibility will be to implement the President's foreign policy 
vision under the guidance of the Secretary of State. In fulfilling the 
President's vision, it is clear that promoting U.S. national security 
objectives to protect the American people, fostering economic 
opportunities for the American people, and ensuring the Department's 
effectiveness and accountability to the U.S. taxpayer must be our 
primary considerations in our foreign policy and in prioritizing our 
limited resources. However, as Secretary Tillerson has clearly stated, 
putting ``America first'' does not mean that it comes at the expense of 
others--in fact, addressing ``real world'' needs and promoting U.S. 
interests are inextricably linked.

    Question 13. Is hard power more effective than soft power in 
demonstrating and promoting U.S. values like respect for human rights 
including the rights of women and girls, democracy, good governance, 
and rule of law, and supporting free societies? How valuable is the 
promotion of these values to U.S. foreign policy and international 
engagement?

    Answer. Our soft powers of development and diplomacy are critical 
in demonstrating and promoting U.S. values abroad. There has long been 
a tradition of U.S. engagement and assistance in support of democracy, 
human rights, good governance, the rights of women and girls, 
supporting free societies, and more. Our investment in these core 
values and principles safeguard our national security and foster global 
prosperity. These values are critical to our U.S. foreign policy and 
international engagement.

    Question 14. Will you commit to maintaining USAID's independence 
and function?

    Answer. This question will be considered in the review that the 
Secretary has undertaken. I have met with virtually every former Deputy 
Secretary of State to discuss this and other issues, and I understand 
the differences in both the culture and operational capacity between 
USAID and the State Department, as well as the distinct role they play 
in protecting our national security. If confirmed, I look forward to 
working with members of the committee and other partners as we consider 
the best way forward to implement our foreign assistance in a way that 
promotes U.S. objectives, protects our interests and does so in an 
efficient way, understanding the unique role of USAID, the culture of 
the agency, and the important role that its employees provide.

    Question 15. What will you do to engage and draw on the Foreign and 
Civil servants in an effective way?

    Answer. One of the most important components in leadership is 
listening to those whom you lead. If confirmed, I plan to meet with as 
many employees of the Department as I can on a regular basis, as I did 
when I was Deputy Secretary of Commerce.
    As I mentioned to Senator Kaine in my confirmation hearing, 
Secretary Tillerson and all of the former Deputy Secretaries with whom 
I have met have told me of the tremendous resource we have in the women 
and men of the State Department. The best engagement with them will be 
for me to listen to them and communicate with them so that they feel 
invested in their work. The employees of the State Department, many of 
whom have decades of experience, have much to share and much to offer 
to the Department and to our great country.

    Question 16. How will you ensure that you are developing the 
intellectual capital and policy ideas you need to shape and implement 
your foreign policy, and represent the Department in the interagency?

    Answer. The best way to shape and implement our policies is to 
provide leadership to and receive input from our career Foreign 
Service, civil service and other employees, who the keepers of our most 
valuable intellectual capital. We should encourage robust policy 
discussions, which will support our mutual efforts to represent the 
State Department's perspective in interagency discussions.

    Question 17. What are your ideas on how to ensure high morale among 
these dedicated public servants?

    Answer. The men and women of the State Department are the most 
valuable component of the organization. Their desire to do what is 
right for the United States, and what is right by their own moral 
compass, is part of what makes them so special. If confirmed, I look 
forward to working with the Secretary to provide them leadership and 
leaders who will engage with them, explain the mission and direction in 
which the organization is going, and, as the Secretary has said, make 
their jobs rewarding.
    Additionally, I want to make sure that the men and women of the 
Department know that they are involved in an enterprise that is doing 
right by the American people and that is protecting our American 
interests and our American values. It is my goal to make sure these 
public servants continue to enjoy remarkable careers in service to 
their country.

    Question 18. The Department of State has the difficult job of 
balancing foreign policy priorities and must have a voice in the 
provision of military assistance to foreign countries. We've seen a 
sustained effort over the last decade to reproduce and transfer State's 
security assistance responsibilities to the Department of Defense.
    Will you reverse this indifference, and personally work in the 
interagency to defend the State Department's central role is the 
provision of US security assistance?

    Answer. The Department has a crucial role in the provision of 
military assistance. Security assistance is a powerful tool that the 
United States can use to strengthen our alliances and partnerships 
around the world and mitigate threats that require a collective 
response--terrorism, organized crime, restraints on the freedom of 
navigation, and much more. But the United States must use security 
assistance in conjunction with the other pillar of foreign policy: 
diplomacy. It is the Department's job to ensure that our security 
assistance aligns with and advances U.S. goals in light of the broader 
diplomatic and defense relationship.
    State must work hard to ensure that all security sector 
assistance--whether it be providing major munitions to Iraq, border 
security programs in Eastern Europe, maritime capacity building in 
Vietnam, or military justice programs in Mexico--strategically targets 
and advances our foreign policy objectives in the country we are 
working with and accounts for the broader regional and global context. 
The Department must work to ensure that any investments we make in 
foreign security forces advance both political and security purposes; 
that they account for the political balance between civil and military 
institutions in the recipient country; that they are based on mutual, 
enduring interests between our countries; and that they do not cause 
long-term unintended effects in the country or region.
    At Secretary Tillerson and Secretary Mattis' direction, State and 
DoD are working closely together to optimize the full range of security 
sector assistance resources and achieve the best possible outcomes for 
U.S. national security and the American taxpayer. Strong State-DoD 
joint planning and program implementation is crucial in this regard. 
With your support, State will maintain a legislated and appropriated 
role in all U.S. foreign assistance, including that managed by other 
agencies. I also will personally defend the Department's central role 
in the provision of U.S. security assistance, including by ensuring 
that that the Department and DoD work closely and collaboratively on 
our respective foreign assistance programs.

    Question 19. You stated during your confirmation hearing that the 
Russian Government poses a persistent and profound threat to 
representative democracy here at home and around the world, especially 
in Europe. What do you believe are the Russian Government's motivations 
and strategic objectives in interfering in the political processes of 
the United States and our allies and partners? What do you think can 
change their decision-making calculus and aggressive behavior?

    Answer. Russia does not accept the post-Cold War settlement in 
Europe and is pushing back against it.
    Our response is, and should continue to be, twofold. We must be 
clear-eyed about Russia's transgressions, frank in our dialogue with 
Russia, and resolute in raising the costs of their behavior, including 
the use of defense, diplomatic, and law-enforcement tools. We must also 
continue to build the resilience of the countries on Russia's periphery 
with a whole-of-government approach that includes working with allies, 
partners, and institutions such as NATO and the EU.

    Question 20. You also stated during your confirmation hearing that 
the United States should ``be robust in our response to this intrusion 
into our democracy.'' In a classified or unclassified form, please 
describe the specific steps that the State Department is currently 
taking to address the threat posed by the Russian Government. 
Specifically, what is the State Department's strategy for countering 
Russian malign-influence operations around the world?

    Answer. I understand that the U.S. strategy is to work with the 
host governments of targeted countries to identify such operations and 
respond appropriately, largely through non-military means such as 
intelligence cooperation and law-enforcement, coordinated through the 
interagency.
    If confirmed, I look forward to working with you and the members of 
this committee on this extremely important issue and to providing more 
information once I have become fully engaged.

    Question 21. Please describe how State Department personnel working 
to counter the Russian Government's malign influence operations 
coordinate their work both within the department (across offices and 
bureaus) and throughout the interagency. Do you believe that the 
current level of coordination is sufficient and, if not, what can be 
done to improve coordination?

    Answer. I understand that the State Department personnel working on 
this issue coordinate their work across geographic and functional 
offices, and through standing interagency working groups at the deputy 
assistant secretary level and above. My understanding is that they rely 
on reporting from our embassies in the region and incorporate them into 
the process, also ensuring that their reporting is shared across the 
Government.
    Because I am not in the Department yet, I simply do not have enough 
information to know how best to enhance the coordination that is 
already occurring. However, in the broader context, I know the 
Secretary is looking at all of the State Department's operations to 
identify ways to improve their effectiveness. If confirmed, I will 
assist in this endeavor.

    Question 22. Please describe how State Department personnel working 
to counter the Russian Government's malign influence operations 
coordinate their work with allied and partner governments, especially 
in Europe, that are the targets of these operations. Do you believe 
that the current level of coordination is sufficient and, if not, what 
can be done to improve coordination?

    Answer. I understand that there has been increasing interest by 
allies and other partners in Russia's new challenge to the post-Cold 
War order generally and in Russian malign influence operations in 
particular. I understand they believe this coordination has increased 
the effectiveness of the State Department's approach.
    Because I am not in the Department yet, I simply do not have enough 
information to know how best to enhance the coordination that is 
already occurring. However, in the broader context, I know the 
Secretary is looking at all of the State Department's operations to 
identify ways to improve their effectiveness. If confirmed, I will 
assist in this endeavor.

    Question 23. In addition to our military power, what tools does the 
US have at its disposal to pursue our interests in Afghanistan?

    Answer. The United States has a broad set of civilian assistance 
programs and resources to foster stability and ensure Afghanistan is a 
reliable and resilient partner, and that directly contribute to the 
achievement of our national security objectives. Civilian assistance 
programs have improved health and education, facilitated private sector 
development, boosted government capacity, improved Afghanistan's 
strategic communications to counter violent extremism, and challenged 
the corrosive effects of corruption and the narcotics trade. 
Afghanistan remains one of the largest recipients of U.S. civilian 
foreign aid. This investment has had an impact and has leveraged 
additional resources from other donors on a roughly two-to-one basis.
    The United States also has a robust public diplomacy program to 
support Afghan efforts to combat extremist messaging that has helped 
build the capacity of Afghanistan's independent media--an essential 
pillar of representative and accountable government.
    Finally, the United States has been active diplomatically, helping 
Afghanistan build its political institutions over the last 15 years, 
helping to promote political stability and development, and working 
with Afghan leaders to build international and regional support for 
stability in Afghanistan and for a negotiated settlement to the 
conflict with the Taliban.
    All of these activities have contributed to the stability of the 
Afghan Government, a government that stands with us in fighting 
terrorism and violent extremism.

    Question 24. What are your plans to leverage U.S. status in 
institutions like NATO, the OSCE, and Council of Europe to pursue U.S. 
national interests?

    Answer. I understand the United States can use its membership in 
NATO and the OSCE to create a force multiplier effect to support our 
security policy in Europe. At NATO, this would include leveraging the 
deployment of one U.S battalion as part of NATO's enhanced forward 
presence to generate the deployment of three Allied battalions to the 
Baltic States. The United States can work with Allies to maintain 
NATO's policy of deterrence and dialogue towards Russia. At the OSCE, 
we will continue to support the monitoring mission in Ukraine, seek the 
implementation of the Minsk accords, and in the OSCE's tradition of a 
broad approach to security, push for progress on a range of human 
rights issues. The United State can cooperate with the Council of 
Europe, where we are an observer state, and where the stated aim is to 
uphold human rights, democracy and rule of law.

    Question 25. Past Deputy Secretaries, notably your immediate 
predecessor, took a particular interest in forging and implementing US 
policy in the Asia-Pacific region, and the US-China relationship in 
particular. What is your vision for the future US-China relationship?

    Answer. The last several decades of political and economic reforms 
have brought monumental changes to the way in which China interacts 
with the outside world. Rather than opposing China's rise, if 
confirmed, I would echo the administration's overarching goal of 
bringing China's behavior in line with internationally accepted rules 
and order.
    The Trump administration also wishes to have a positive, results-
oriented, mutually beneficial relationship with China. As part of that, 
the Trump administration wishes to put America first by ensuring that 
American interests are safeguarded in all aspects of our relationship 
with China.
    If confirmed, I would work to improve the relationship the United 
States has with China, seeking to make positive progress in areas such 
as economics and trade, law enforcement, and counterterrorism, while at 
the same time promoting American values like human rights. If 
confirmed, I will engage frankly and constructively on areas of 
disagreement.

    Question 26. In your view, are there any options for a genuine and 
lasting peace that do not include a two-state solution?

    Answer. President Trump has made it clear that it is a top priority 
for him to work towards achieving peace throughout the Middle East, 
including a comprehensive and lasting peace agreement that would end 
the Israeli-Palestinian conflict. Any peace settlement ultimately has 
to be the product of direct negotiations between the parties, and both 
sides must agree. We can help, and support progress towards a peace 
deal--and the President is determined to do so--but we can't impose a 
solution on the Israelis and Palestinians. Nor can one side impose an 
agreement on the other.

    Question 27. Is U.S. policy the pursuit of a two-state solution?

    Answer. President Trump has made it clear that he supports whatever 
solution the parties, both the Israelis and Palestinians, can live 
with. The administration is not casting aside the two-state solution. 
It still remains a possibility if both parties agree that a two-state 
solution is their preferred approach, and in such an event the 
President will strongly support them in moving towards that goal. This 
is not our choice to make, it is theirs to make together.

    Question 28.  On April 18th the Trump administration certified that 
Iran is in compliance with its commitments under the Joint 
Comprehensive Plan of Action, but raised concerns about Iran's role as 
a state sponsor of terrorism. Secretary Tillerson announced that the 
administration is undergoing an interagency review of the Joint 
Comprehensive Plan of Action that will evaluate whether suspension of 
sanctions related to Iran pursuant to the JCPOA is vital to the 
national security interests of the United States.

   In your assessment of current U.S, efforts to prevent Iran from 
        obtaining a nuclear weapon, are there options other than the 
        JCPOA which can maintain international commitment and pressure 
        on Iran?

    Answer. The President has ordered a review of the Joint 
Comprehensive Plan of Action (JCPOA), which is part of a broader review 
of Iran policy and U.S. strategy in the Middle East. While this review 
is underway, it is my understanding that the administration is 
insisting on strict implementation by Iran of the terms of the JCPOA. 
At the same time, the United States will continue to fulfill its JCPOA 
commitments. I understand the review is comprehensive and covers all 
aspects of the JCPOA. Furthermore, even as the review continues, the 
United States will keep working closely with Israel, our Gulf allies, 
and other partners to combat Iranian support for terrorism and counter 
Iran's destabilizing activities in the region. The United States will 
also continue to use authorities outside the scope of the JCPOA, 
including authorities available to designate entities and individuals 
involved in Iran's ballistic missile program, its support for 
terrorism, and human rights abuses. This includes the February 3 
designations of 25 individuals and entities involved in Iran's 
destabilizing activities, including persons and entities connected to 
the Islamic Revolutionary Guard Corps (IRGC), as well as persons and 
entities involved in Iran's ballistic missile program. On March 17, the 
Trump administration also designated two individuals for terrorism-
related activities. This was followed by sanctions on 11 individuals 
and entities under nonproliferation authorities on March 21 for their 
support for Iran's ballistic missile program. Finally, on April 13, the 
administration designated an individual and entity involved in Iran's 
abuses of human rights.

    Question 29. On April 18th the Trump administration certified that 
Iran is in compliance with its commitments under the Joint 
Comprehensive Plan of Action, but raised concerns that Iran's role as a 
state sponsor of terrorism. Secretary Tillerson announced that the 
administration is undergoing an interagency review of the Joint 
Comprehensive Plan of Action that will evaluate whether suspension of 
sanctions related to Iran pursuant to the JCPOA is vital to the 
national security interests of the United States.
    Is U.S. compliance with its obligations pursuant to the JCPOA in 
the U.S. national security interest?

    Answer. The President has ordered a review of the JCPOA, which is 
part of a broader review of Iran policy and U.S. strategy in the Middle 
East. While this review is underway, I understand the administration 
will insist on strict implementation by Iran of the terms of the JCPOA. 
At the same time, the administration has been clear it will continue to 
fulfill JCPOA commitments.

    Question 30. For the last six years, the United States has sought 
to bring an end to the conflict in Syria. The House of Representatives 
is considering legislation to encourage prosecution of war crimes in 
Syria and to sanction foreign entities that support the Government of 
Syria's slaughter of the Syrian people.

   What are your views on the efficacy of new sanctions in this 
        context?

    Answer. De-escalating the conflict in Syria is a top priority for 
this administration. I understand the administration is committed to 
working toward a credible political resolution to this conflict. 
Accountability is an integral part of any lasting political resolution 
as defined by the 2012 Geneva Communique and U.N. Security Council 
Resolution 2254. As a result of the recent actions of the regime, 
notably the April 4 sarin attack, the United States designated 271 
employees of the Syrian Scientific Studies and Research Center, the 
organization responsible for the Assad regime's chemical weapons 
program. These designations send a strong message that the United 
States holdsthe entire Assad regime accountable for the barbaric use of 
chemical weapons in Syria, a blatant violation of the Chemical Weapons 
Convention and U.N. Security Council Resolution 2118.
    The United States has also targeted sanctions on Iran's Islamic 
Revolutionary Guard Corps and its Ministry of Intelligence and Security 
for their support to the Assad regime. This was a coordinated effort 
with the international community toward ways to limit Iran's efforts to 
resupply the Assad regime with the means to perpetuate its brutality 
against the Syrian people. I cannot speculate about future potential 
designations, though broadly, the administration will continue to apply 
pressure to the Assad regime by targeting the Government, its ability 
to generate revenue, its attempts to advance its chemical weapons 
programs, as well as its human rights abuses.
    Although the latest round of U.S. sanctions are designed to 
discourage the Assad regime from using chemical weapons, the regime 
continues to target civilian and medical facilities since the April 4 
sarin attack, and is unlikely to deviate from its use of indiscriminate 
bombardment absent increased pressure from Russia.
    I understand the administration appreciates the authorities 
Congress has granted to sanction both the Assad regime and individual 
officials. The United States intends to press the regime to the full 
extent allowed under those authorities, which have provided the tools 
necessary to stand against Assad's atrocities.

    Question 31. What pressure do you think the State Department could 
use to get the parties to be more serious about ending the violence?

    Answer. I've learned the United States recently attended the May 3-
4 Astana Conference as an observer. At this meeting, the ceasefire 
guarantors--Iran, Russia, and Turkey--agreed to work together to create 
de-escalation zones. The United States hopes this arrangement can 
contribute to a de-escalation of violence in Syria, ensure unhindered 
humanitarian access, and set the stage for a political settlement of 
the conflict. In light of the failures of past arrangements, there is 
reason to be cautious. Russia in particular can be pressed to act as 
genuine ceasefire guarantor and to persuade Iran to do the same.
    In Geneva, U.N.-led political negotiations are slated to resume May 
16. Foreign parties, including the United States, are not formal 
participants; but will stay in close contact with the U.N. and the 
Syrian opposition as they take part in the talks. The United States has 
urged the opposition to take a strategic and constructive approach to 
both these processes. De-escalation and an inclusive political process 
to resolve Syria's future is the only path forward to ending this 
conflict and supporters of the belligerents have a unique 
responsibility to incentivize the belligerents to de-escalate the 
violence.

    Question 32. Do you believe that Assad has a place in Syria's 
future?

    Answer. Secretary Tillerson has maintained a consistent position on 
the fate of Assad. The Secretary believes that a lasting peace in Syria 
ultimately means a Syria without Assad. The United States remains 
committed to a political resolution which can bring about a more 
representative and peaceful Syria. The United States believes there is 
a need to de-escalate the violence in Syria and to have an inclusive 
political process through which Syrians will decide their own political 
future and al-Assad's role, consistent with the principles enshrined in 
U.N. Security Council Resolution 2254 and the Geneva Communique. The 
United States believes that once Syrians are afforded the chance to 
decide for themselves without coercion and with full participation, it 
is very likely they will chart a course for their country's future with 
new, credible leadership. It is my understanding that the 
administration has never said that we believe Bashar al-Assad is an 
appropriate or credible leader for Syria, or that the country will see 
peace as long as he is in power. Assad's regime has perpetrated war 
crimes and grievous violations of human rights over the past six years. 
It is not possible to imagine a peaceful, stable Syria led by Bashar 
al-Assad.

    Question 33. The May 2nd readout of President Trump's phone call 
with Russian President Putin noted that their conversation included 
``discussion of safe, or de-escalation, zones to achieve a lasting 
peace for humanitarian and many other reasons.'' Then on May 4th in 
Kazakhstan, Russia and Turkey signed a Memorandum of Understanding for 
the creation of four ``zones of de-escalation'' in Syria.

   Will the Turkey-Russia agreement inform U.S.-Russian discussions on 
        safe zones in Syria?

    Answer. Russia, Iran, and Turkey, the Astana guarantors, agreed May 
4 to work together to create four ``de-escalation zones'' in greater 
Idlib, northern Homs, Eastern Ghouta, and ``certain parts of southern 
Syria.'' The arrangement has not yet been approved by the Syrian 
Government and armed opposition groups. Secretary Tillerson has stated 
publicly the goal is to foster interim areas of stability in Syria and, 
separately, to stabilize areas liberated from ISIS. When ISIS is 
cleared from particular areas, these regions can stabilize, so that 
displaced families may return to their homes. This means supporting 
critical projects like de-mining and ensuring these communities have 
water and basic necessities.
    The May 4 proposal that Russia drafted, and that the Astana 
guarantors--Russia, Turkey, and Iran--accepted, calls for the 
establishment of four de-escalation zones in areas controlled by the 
Syrian opposition. While there are problematic elements of the Astana 
agreements, the United States nevertheless support any effort that can 
genuinely de-escalate the violence in Syria, ensure unhindered 
humanitarian access, focus energies on the defeat of ISIS and other 
terrorists, and create the conditions for a credible political 
resolution of the conflict.

    Question 34. What are the other reasons' for establishing safe 
zones, as noted in the May 2 White House read out?

    Answer. If ceasefires hold and areas of Syria become more stable, 
there may be a better environment for serious political negotiations. 
That is something we all want, so the United States calls on Russia and 
all parties to fulfill their ceasefire commitments through the Astana 
process. The regime systemically blocks aid to people in need in areas 
of Syria where opposition control. The United States supports the 
language in the Astana de-escalation agreement that calls for 
unhindered access to humanitarian assistance to people in need. The 
United Nations should determine the needs of distressed and besieged 
communities, and that all parties should cooperate fully to grant the 
U.N. unhindered access to such areas. The Astana guarantors should 
press the regime to abandon its tactic of obstructing access to food 
and humanitarian assistance as a weapon of war.

    Question 35. Will you commit to provide Congress with a briefing on 
the funding, authorities, personnel requirements, and objectives of 
establishing safe zones in Syria?

    Answer. The administration continues to explore how to best support 
the de-escalation of the Syrian civil war and if confirmed I will 
commit to providing appropriate congressional committees with a 
briefing. It is my understanding that the administration avoids the use 
of the term ``safe zones'' or ``no fly zones'' or ``zones,'' as these 
terms suggest a militarily-enforced no-fly zone. Rather than trying to 
create such a zone, which would pull resources from the D-ISIS 
campaign, the United States is trying to capitalize on stabilized 
conflict lines to de-escalate the conflict in various parts of the 
country--effectively cementing ceasefires and, lowering the level of 
violence, so that humanitarian assistance can reach civilians in need. 
When the fighting has stopped and civilians receive humanitarian relief 
and basic services in areas throughout Syria, there will be a better 
environment for a serious discussion of Syria's political future.

    Question 36. It is my understanding that U.S. and Iraqi officials 
are currently discussing a follow-on mission for U.S. forces in Iraq, 
after the defeat of ISIS. However, I am concerned that Iraq will remain 
perpetually unstable and susceptible to ISIS' successor if Iraq's 
leaders do not come together in a national program of inclusive 
governance and reconciliation.

   What conditions should the U.S. insist on if we are going to 
        shoulder the cost and risk of keeping forces in Iraq?

    Answer. Defeating ISIS and ensuring that it cannot reconstitute is 
a core national security priority of the United States. The ISF, 
including Kurdish Peshmerga, are bravely leading this fight, taking the 
vast majority of the casualties, and slowly but surely pushing ISIS out 
of Iraq. More than 63 percent of the territory ISIS once held is now 
back under Iraqi control and not a single liberated community has 
fallen back under ISIS control. At the invitation of the Government of 
Iraq, the United States has played a supporting, but critical, role in 
helping the ISF achieve a nearly two-year run of unbroken victories in 
Tikrit, Ramadi, Sinjar, Fallujah, Hit, Bayji, Rutbah, Qayarrah, and 
soon Mosul. Nevertheless, ISIS remains a brutal foe that is a threat to 
the United States and our partners in the region and Europe; it is 
clearly in the interest of the United States to defeat ISIS and to 
remain engaged with our partners to ensure the group cannot reemerge.
    President Trump and Prime Minister Abadi made it clear during 
Abadi's March visit to Washington that they looks forward to building a 
post-ISIS security and economic partnership in Iraq. Continued U.S. 
security partnership will help Iraq to develop the forces needed to 
prevent threats to Iraqi sovereignty and a resurgence of terrorist 
activity, helping to ensure our gains against ISIS are lasting. It is 
in the interests of both the United States and Iraq to develop this 
post-ISIS partnership. I share your concerns about instability in Iraq 
and the potential for continued terrorism, even after ISIS no longer 
controls territory. This is all the more reason why the United States 
should remain engaged with our Iraqi partners--we, and they, must not 
fight the same war again. The administration agrees that Iraqi leaders 
need to do more to improve governance and address unresolved issues to 
better meet the needs of the Iraqi people. The decentralization 
program, which helps bring responsibility for government services 
closer to local communities, is one example of these efforts. The 
United States will continue to work with a wide range of Iraqis across 
the political spectrum and civil society to advance this agenda. As a 
starting point, the United States considers stabilizing areas liberated 
from ISIS a key component in ensuring that displaced communities, 
primarily Sunnis and ethnic minorities, are able to return home in 
dignity and with greater autonomy from the central government to manage 
their affairs. These grassroots efforts to promote reconciliation 
complement and enforce the Government of Iraq's efforts at broader 
national reconciliation.
    Iraq will hold national elections in the spring of 2018 and the 
Iraqi people will be able to hold their leaders accountable for their 
performance in office. The United States will continue to work with the 
United Nations Assistance Mission for Iraq (UNAMI) to ensure that these 
elections occur on time, are transparent, and reflect the will of the 
Iraqi people. The focus remains on supporting the constitutional system 
and strengthening democratic institutions that transcend the interests 
of individuals, political parties, or sectarian components of Iraqi 
society.

    Question 37. Is it in the U.S. national security interest to 
increase our military involvement--either directly or through enhanced 
support to the Saudi coalition?

    Answer. Ending the conflict in Yemen is a priority for this 
administration. The conflict has not only created a humanitarian 
crisis, it threatens Saudi Arabia's security, allows AQAP to expand, 
allows ISIS to gain a foothold, and allows Iran to exploit the 
political and security vacuum.
    The United States is currently providing limited support to the 
Saudi-led coalition, which is responding to the Yemeni Government's 
request for assistance in countering aggressive Houthi military 
actions. It is unacceptable for an armed militia to threaten Saudi 
Arabia's southern border. Iran, which is supporting the Houthis with 
military equipment, funding, and training, cannot be allowed to 
establish a foothold in the Arabian Peninsula. It is in our national 
security interest to help the Government of Yemen restore stability and 
counter terrorism, and also to help Saudi Arabia protect its border, 
which is why the United States is providing logistical and intelligence 
support to the coalition. At the same time, the United States continues 
to press the coalition at the highest levels to take appropriate 
measures to mitigate the impact of the conflict on the civilian 
population.
    Ultimately, a political solution is the only way to end the 
conflict, and Saudi Arabia understands the imperative of ending this 
conflict quickly. The United States continues to support U.N. efforts 
to restart negotiations aimed at reaching a comprehensive peace 
agreement.

    Question 38. Is there any solution other than a negotiated 
settlement?

    Answer. There is no decisive military solution available to either 
side to end the conflict--an enduring solution will come through a 
comprehensive political agreement which will require compromise from 
all sides. The United States fully supports the ongoing efforts of the 
U.N. Special Envoy for Yemen, Ismail Ould Cheikh Ahmed, to bring about 
an end to the fighting and to bring the parties to the conflict back to 
negotiations as soon as possible.
    The United States also does not believe a split between north and 
south would be sustainable or in the U.S. national interest, and the 
administration continues to support a unified Yemen. Neither the north 
nor the south has the resources or political cohesion to endure 
independently from one another. This would lead to a fracturing of the 
Yemeni state, worsening the political and security vacuum for AQAP and 
ISIL to exploit.

    Question 39. Before the Obama administration used force against 
ISIS in Surt last fall, it waited for the Government of National Accord 
to request U.S. military support and ensured that it had identified 
committed local forces to work on the ground. As ISIS continues to lose 
ground in Iraq and Syria, the organization will turn to other locations 
including Libya. In remarks before the Senate Armed Services Committee 
on March 9, General Waldhauser--Commander of U.S. Africa Command--
stated that in Libya, ``we must carefully choose where and with whom we 
work in order to counter ISIS and not shift the balance between 
factions and risk sparking greater conflict in Libya.''

   What actions might the United States take that could spark greater 
        conflict? In other words, what must we avoid doing?

    Answer. The United States should avoid any actions or statements 
that might prejudice--or appear to prejudice--the outcomes of Libya's 
national reconciliation process. The roles of individual Libyans must 
be determined by the Libyans themselves. The United States is concerned 
about the risk of armed civil conflict in Libya and has urged all 
parties to exercise restraint. Libyan forces have made progress against 
ISIS in Sirte and eastern Libya. Renewed fighting between Libyans will 
distract from the fight against terrorism and create space that ISIS 
and other violent extremists can exploit. The United States must try to 
ensure that the political process remains open and inclusive, so that 
all parties can participate in national reconciliation rather than 
resorting to violence.

    Question 40. Does the State Department have a role in ending the 
conflict in Libya?

    Answer. It is my understanding that the State Department works 
closely with Libyan leaders and with regional and international 
partners to support efforts to broker a political compromise among 
Libyans and bolster the Libyan Political Agreement as the basis of 
negotiations and a path to national elections.
    Ending the civil conflict in Libya, keeping the Libyans engaged in 
a political dialogue, and finding a negotiated political solution are 
essential to building the stability Libya needs to defeat ISIS and 
other terrorists, address transnational flows of irregular migrants and 
weapons, rebuild Libya's economy, and meet the humanitarian needs of 
the Libyan people. There is no military solution.

    Question 41. Are there any alternatives to the Government of 
National Accord that could bring long-term stability to Libya?

    Answer. I understand most Libyans believe the Libyan Political 
Agreement must remain the framework for a political solution. There is 
also growing consensus on the need for negotiated amendments to the 
Political Agreement.
    The United States supports efforts to broker discussions between 
Prime Minister al-Sarraj's Government of National Accord (GNA) and 
eastern Libyan leaders to overcome the impasse. The only way to bring 
lasting stability is through a Libyan-driven effort to build an 
inclusive, effective national government and unify national security 
forces under governmental authority.

    Question 42. The civil war in South Sudan shows no signs of 
abating, precipitating a humanitarian disaster. 40 percent of the 
population currently faces life-threatening hunger; 100,000 face 
famine. As much as one-third of the population is displaced. The number 
of refugees fleeing to neighboring countries has more than doubled 
since July 2016. Uganda hosts almost 900,000 refugees at what has 
become the largest camp in the world. The only hope I see for turning 
the tide is a political solution. I've advocated for a Special Envoy to 
lead U.S. efforts to help find peace in South Sudan. What role do you 
see for the U.S. in helping bring peace to this troubled country?

    Answer. The United States has played and will continue to play a 
central role in the effort to bring peace to South Sudan, as the 
world's youngest country endures its fourth year of civil war. With the 
eruption of violence in Juba in July 2016, South Sudan's conflict 
entered a more complex and destructive phase, with Riek Machar's exile 
to South Africa, the fracturing of the opposition, and the emergence of 
new armed groups. The urgency of the situation and its attendant 
humanitarian crisis demand that the United States continue to play its 
historic leadership role in seeking peace. However, the complexity of 
the situation means that the United States must redouble coordination 
and cooperation with key partners, notably the Inter-Governmental 
Authority on Development (IGAD), the Troika (Norway and the United 
Kingdom), the African Union (AU), and the United Nations.

    Question 43. The civil war in South Sudan shows no signs of 
abating, precipitating a humanitarian disaster. 40 percent of the 
population currently faces life-threatening hunger; 100,000 face 
famine. As much as one-third of the population is displaced. The number 
of refugees fleeing to neighboring countries has more than doubled 
since July 2016. Uganda hosts almost 900,000 refugees at what has 
become the largest camp in the world. The only hope I see for turning 
the tide is a political solution. I've advocated for a Special Envoy to 
lead U.S. efforts to help find peace in South Sudan. If confirmed, will 
you support the appointment of a Special Envoy?

    Answer. There are many complex issues at stake in South Sudan--
devastating conflict, mass atrocities, famine and widespread food 
insecurity, counterterrorism, and regional destabilization due to mass 
population movements--which constitute a threat to peace and stability 
in east and central Africa. They require a tightly focused policy 
engagement at a senior level.
    The United States is heavily involved in supporting peace efforts 
and providing assistance to refugees and displaced populations in Sudan 
and South Sudan and the region.
    Given these complex issues, if confirmed, I will explore how we can 
do better, including consulting with Secretary Tillerson about any 
proposed future structure to address all issues related to Sudan and 
South Sudan, and will also take into consideration the results of our 
internal State Department organizational review.

    Question 44. Aside from provision of equipment, what steps could 
the United States take to help improve the Nigerian military's 
effectiveness in the north east?

    Answer. The United States is actively supporting efforts by Nigeria 
to fight and defeat Boko Haram and its offshoot ISIS-West Africa. In 
addition to equipment, the United States provides the Nigerian military 
with advisors. advisors deployed to Maiduguri, the capital of Borno 
State and the heart of the Boko Haram and ISIS-WA insurgency, continue 
to play an important role in advising the Nigerian Army Theater Command 
Headquarters, which is located there.
    I understand the United States also has a robust program of 
intelligence sharing with the Nigerian military, both in Maiduguri and 
at the Fusion Cell in Abuja. We are working with Nigerian partners to 
make our intelligence sharing more timely and even more effective in 
bolstering Nigerian military operations. Additionally, and in full 
accordance with the human rights requirements of the Leahy Law, the 
United States continues to train the Nigerian military on a number of 
issues, including counterterrorism and human rights. This training has 
tangibly augmented the effectiveness of the Nigerian Army in its 
operations, and we look forward to continuing and expanding these 
training programs.

    Question 45. What will you do, if confirmed, to ensure that we 
remain steadfast in encouraging the Nigerian Government to hold those 
in the military responsible for human rights abuses, including the 
Zaria massacre of 2015, accountable?

    Answer. If confirmed, I will ensure we continue to encourage the 
Nigerian Government to hold accountable those in the military 
responsible for human rights abuses. Through high-level diplomatic 
engagement, we will continue to underscore how human rights abuses by 
the security forces, as well as impunity for those violations, 
undermine Nigeria's security goals, tarnish its international 
reputation, and impede efforts to defeat Boko Haram and ISIS-West 
Africa. We will also continue to ensure that no assistance is provided 
to any Nigerian security force unit responsible for human rights 
abuses, in accordance with the law.
    We will continue to press the Nigerian Government on accountability 
for the Rann bombing. As the investigation is finalized, we will 
continue to seek full access to the information on the Nigerian 
investigations and for further corrective actions related to its 
findings.

    Question 46. Do you agree with Freedom House's characterization of 
the state of democracy in Africa? If so, do you believe America has a 
role to play in working to promote democracy and good governance on the 
continent?

    Answer. Strong, accountable, and democratic institutions, sustained 
by a deep commitment to the rule of law, generate greater prosperity 
and stability, and meet with greater success in mitigating conflict and 
ensuring security. While the African continent has made important gains 
in democracy and institution building, those gains are fragile. U.S. 
Government engagement in the region spans a wide range of country 
situations, from autocracies to post?conflict states to consolidating 
democracies. Although elections have become a regular occurrence across 
the continent, there are still too many countries where the transition 
to democracy is uneven and slow, and too many leaders who resist 
relinquishing power. In many countries, corruption is endemic and state 
institutions remain weak, leading to greater regional instability.
    Performance varies widely across the Continent. West Africa, for 
example, has undergone a significant democratic transition, and the 
period from 2015 through 2017 saw a host of West African nations 
peacefully going to the polls, with some, like Cote d'Ivoire and 
Burkina Faso, experiencing their first peaceful elections or transfers 
of power in decades. Most notably, in Nigeria, Ghana, Cabo Verde, and 
Benin opposition candidates were able to win elections and were sworn 
in as heads of state. This increased democratization has even changed 
how the region views attempts to cling to power. Proof of this came 
with the departure into exile of the long-time leader of The Gambia in 
January 2017 following his defeat at the ballot box. After the former 
president attempted to ignore the results and cling to power, the 
Economic Community of West African States sent democratically elected 
heads of state to demand he step down, threatening diplomatic 
isolation, sanctions, and even military intervention if he failed to do 
so. Faced with this unified opposition, the former president agreed to 
go into exile.
    Elections alone do not define a democracy, particularly as some 
incumbents in Africa and elsewhere narrow or close altogether the space 
for competition, participation, and a free press long before an 
election is held. A healthy democracy requires checks and balances, 
including a strong judiciary and legislature, competitive political 
parties, a free press, and an engaged civil society.
    Recognizing the foundational importance of democracy, human rights, 
and governance to Africa's future and U.S. foreign policy objectives on 
the continent, strengthening democratic institutions remains a 
priority. The United States seeks to advance democracy in Africa by 
promoting the rule of law, respect for human and civil rights, credible 
and legitimate elections, a politically active civil society, and 
accountable and participatory governance. Working in partnership with 
African Governments and civil society, United States support aims to 
strengthen governance institutions and to protect the democratic and 
development gains that have been made across the continent and to 
prevent democratic backsliding.

    Question 47. What steps will you take to advance multilateral 
diplomacy in response to Venezuela's political crisis and coordinate a 
regional approach to growing humanitarian challenges?

    Answer. It is my understanding the United States is working with 
its international partners to build consensus for a peaceful solution 
and to see the re-establishment of democratic norms in Venezuela. On 
April 26, the United States joined a majority of countries in the 
hemisphere in adopting an OAS resolution calling for an emergency 
meeting of foreign ministers to discuss the worsening situation in 
Venezuela, including the humanitarian situation. This follows a U.S.-
supported resolution condemning recent actions taken by the Venezuelan 
Supreme Court to undermine the separation of powers and urging the 
Government of Venezuela to restore full constitutional authority to the 
National Assembly.
    The United States should continue to call for the release of all 
political prisoners, the publication and implementation of an electoral 
calendar to achieve a political resolution to this crisis, as well as 
respect for the National Assembly.

    Question 48. How can the U.S. best use targeted sanctions and other 
tools to hold accountable those Venezuelan officials that are engaged 
in corruption, drug trafficking, and actions that are destabilizing 
democratic governance and the rule of law?

    Answer. The U.S. Government evaluates, on an ongoing basis, the 
range of foreign policy tools at its disposal to best achieve its 
foreign policy objectives and enhance the nation's security. These 
include sanctions under the Narcotics Kingpin Act, as well as under 
Executive Order 13692, which implements the Venezuela Defense of Human 
Rights and Civil Society Act.
    Sanctions under that Executive Order target specific persons, 
including those involved in human rights abuses or violations, 
undermining democratic processes or institutions, and public 
corruption, among other things. U.S. sanctions do not target the 
Venezuelan people or economy as a whole.
    I believe the U.S. Government should, of course, encourage 
Department of Justice investigations of criminal conduct under U.S. 
law, particularly as it relates to public corruption and drug 
trafficking.

    Question 49. Will the United States meet its New START treaty 
commitments? Does the United States believe Russia in February 2018 
will meet its New START Treaty commitments?

    Answer. It is my understanding that the United States and Russia 
will meet the New START Treaty central limits in accordance with the 
stipulated deadline of February 5, 2018. Senior Russian officials have 
reaffirmed their commitment to meeting these limits.
    The United States continues to monitor Russia's strategic nuclear 
modernization and implementation of the New START Treaty through the 
Treaty's verification regime. Without the New START Treaty in force, 
the United States would lack critical knowledge about the composition 
and size of Russia's strategic forces and the insights the Treaty 
provides into Russia's modernization program for its strategic systems.

    Question 50. Is the Trump administration planning to withdraw from 
the New START Treaty or to modify it before the treaty expires in 2021?

    Answer. It is my understanding the administration is reviewing 
Russia policy, including the approach to enforcing compliance with arms 
control treaty obligations. Currently, the administration is focused on 
reaching the New START Treaty's central limits by February 2018, and 
will not assess next steps in strategic arms control until after that 
point.

    Question 51. Does the Trump administration believe Russia's 
deployment of a ground based cruise missile is a ``material breach'' of 
the INF Treaty?

    Answer. The international legal doctrine of material breach allows 
one party to terminate a treaty or suspend its operation in whole or in 
part based on, inter alia, another party's violation of a provision 
essential to the accomplishment of the object and purpose of the 
treaty. It is my understanding that the administration has not made a 
determination of material breach at this time. The administration is 
undertaking an extensive review of Russia's violation of the INF Treaty 
in order to assess the viability of the Treaty, the potential national 
security implications for the United States of the violation, and 
possible responses aimed at imposing costs and denying Russia any 
advantage from its violation.

    Question 52. Will you commit to maintaining a separate bureau in 
the State Department (currently the Bureau of International Security 
and Nonproliferation) exclusively devoted to preventing the 
proliferation of Weapons of Mass Destruction (WMD) and related 
materials?

    Answer. I am committed to preventing the proliferation of Weapons 
of Mass Destruction (WMD) and related materials. Nonproliferation of 
WMD has been a pillar of U.S. foreign policy over many decades and it 
remains in our vital national security interest to prevent and deter 
the proliferation and use of WMD. If confirmed, I will work closely 
with Secretary Tillerson on how best to organize the State Department 
to address proliferation.

    Question 53. Will you commit to fully funding critical non-
proliferation intergovernmental organizations such as the IAEA, OPCW, 
and CTBT Preparatory Organization at FY 2016 levels?

    Answer. I understand that the Department is in the process of 
determining how to implement the funding reductions called for by the 
President's FY18 budget request. The Department appreciates 
Congressional support for funding necessary to meet U.S. commitments, 
responsibilities, and interests in areas such as this.

    Question 54. What is your interpretation of Section 4.11 of the 
Paris Agreement and the flexibility it provides parties to adjust their 
nationally determined contributions as they see fit? What significance 
does the word ``may'' in this section have to the U.S., or any party's 
ability to adjust their contributions in whatever way they see fit? Do 
you agree that the presence of the term ``may'' in this section makes 
this provision non-binding? If you believe this provision is legally 
binding please explain your argument.

    Answer. This question involves a degree of specificity and 
technicality with respect to treaty interpretation in the context of 
the Paris Agreement that would require me to consult with State 
Department lawyers before providing a response.

    Question 55. If confirmed as Deputy Secretary, you will be the 
primary person for State in overseeing and coordinating U.S. security 
cooperation and assistance to foreign countries, including military 
exercises and exchanges. Will you devote particular personal attention 
to this responsibility to fulfill the Secretary's role to oversee all 
assistance to foreign assistance, including oversight and participation 
in the formulation of the Department of Defense security assistance 
projects as allowed by law?

    Answer. Yes. State's role in the provision of security assistance 
is critical to ensuring that all such assistance directly advances a 
common set of foreign policy goals and accounts for broader U.S. 
interests in the country, region, and world. At Secretary Tillerson and 
Secretary Mattis' direction, the Department and DoD are working closely 
together to optimize the full range of security sector assistance 
resources and thereby achieve the best possible outcomes for U.S. 
national security and the American taxpayer. To further this effort, if 
confirmed, I will devote personal attention to building collaborative 
relationships between the Department and DoD at all levels, such that 
all of our assistance efforts are integrated and synchronized in a 
manner that is strategic, efficient, and reflects our agencies' 
respective strengths and missions. Where the Department has a 
legislated role in the planning or approval of DoD assistance programs, 
I will ensure that the Department has the resources and direction 
necessary to fulfill that role in a meaningful way, such that all 
assistance--regardless of the agency managing it--advances a single set 
of foreign policy objectives and is subject to the same level of 
rigorous foreign policy oversight.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to John Sullivan by Senator James E. Risch

    Question 1. Do you support completing the Export Control Reform 
Initiative?

    Answer. I support the modernization of the U.S. export control 
system and look forward to being briefed by the Department's experts on 
the status of the Export Control Reform Initiative. As a general 
matter, I believe it is important that we provide all American 
industries with a level playing field.

    Question 2. What is the status of the proposed rule to transfer to 
Commerce the export licensing responsibility for commercial and 
sporting products currently on the USML categories I, II, and III?

    Answer. I understand the Department is finalizing the rule for 
three remaining categories of controls, and plans to obtain guidance to 
publish them. It intends to solicit public comment, as it did for the 
other 18 categories. This process was requested by U.S. industry 
members, including the firearms and ammunition industry, to help ensure 
the rules are clear and implementable.

    Question 3. Please provide the timeline for when the State 
Department will publish its proposed rule to transfer export licensing 
of commercial and sporting firearms and ammunition products currently 
on the USML categories I, II, and III to the Commerce Department's CCL?

    Answer. I understand the Department is in the process of obtaining 
guidance for publication and to have the rule included in an upcoming 
issue of the Federal Register. The Department does not have an exact 
timeline for publication at this time because revisions to the U.S. 
Munitions List (USML) require contemporaneous publication of a 
companion rule by the Department of Commerce, and because of required 
interagency and intra-Executive approvals for publication in 
conjunction with an ongoing review of regulatory activities. If 
confirmed, I look forward to working towards an expeditious 
publication.

    Question 4. Do you support continuing the QDDR process at the State 
Department?

    Answer. The previous administration implemented a Quadrennial 
Development and Diplomacy Review (QDDR). The QDDR process is an 
exercise to assess how we can be more efficient, effective, and 
accountable. As discussed in my confirmation hearing, the world has 
changed in the 21st century and the way the Department is organized has 
not kept pace. I look forward to supporting the Secretary's review of 
the current structure of the State Department to see how we can better 
meet these challenges.

    Question 5. As you know, the Department of Defense issues the QDDR 
as part of a series of documents produced used to help inform a 
Planning, Programming, Budgeting process. If you keep the QDDR process, 
will you also take the additional steps of drafting similar long-term 
strategic budget and other planning and programming documents?

    Answer. The Department of State and USAID are mandated by the 
Government Performance and Results Modernization Act of 2010 to produce 
an agency-level strategic plan. The strategic plan is a long-term, 
multi-year strategy that outlines our goals and objectives, and which 
provides direction and guidance in the formulation of our budget and 
other planning and programming processes. I understand the State 
Department is in the development stages of this strategic plan. This 
process has already guided formulation of our FY 2018 budget and will 
provide key inputs to our FY 2019 budget, as well as the concurrent 
reorganization. I look forward to working with the Secretary to ensure 
the Department's management priorities are strategically aligned with 
policy guidance and direction to meet our core mission across our 
global organization.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to John Sullivan by Senator Robert Menendez

    Question 1. What role do you see the United States playing in 
Venezuela?

    Answer. The Venezuelan people aspire to a free, democratic, and 
prosperous country, and the United States should continue to strongly 
support those aspirations. The U.S. Government should remain engaged 
with a broad range of Venezuelan society and our international partners 
to insist that the Venezuelan Government respect its democratic 
institutions.
    The U.S. Government should call on the Government of Venezuela to 
fulfill its obligations to promptly hold elections, respect the 
rightful authority of the National Assembly, provide for the immediate 
and unconditional release of all political prisoners, and tend to the 
humanitarian needs of the Venezuelan people. The United States, in 
concert with a majority of other countries in the hemisphere, adopted 
an OAS resolution calling for an emergency meeting of foreign ministers 
to review the situation in Venezuela and offer humanitarian assistance 
to the Venezuelan people.

    Question 2. How can we leverage the OAS and our regional alliance 
to address this crisis?

    Answer. The United States is working with its international 
partners to build consensus for a peaceful solution and to see the re-
establishment of democratic norms in Venezuela. The United States 
joined a majority of countries in the hemisphere on April 26 in 
adopting an OAS resolution calling for an emergency meeting of foreign 
ministers to discuss the worsening situation in Venezuela. This follows 
a U.S.-supported resolution condemning a series of Venezuelan Supreme 
Court actions to undermine the separation of powers and urging the 
Venezuelan Government to restore full constitutional authority to the 
National Assembly.
    he United States should continue to call for the release of all 
political prisoners, the publication and implementation of an electoral 
calendar to achieve a political resolution to this crisis, and respect 
for the National Assembly.

    Question 3. We have an opportunity to achieve a peaceful resolution 
of the long festering and untenable situation in Cyprus. Positive 
Turkish engagement and support of this process is vital, as is that of 
International Organizations and the U.S.

   How do you view the current, ongoing Cyprus settlement talks held 
        under UN auspices?

    Answer. The United States continues to fully support the Cypriot-
led, UN-facilitated process under UN Special Adviser Espen Barth Eide. 
We support efforts by the parties to reach a settlement to reunify 
Cyprus as a bi-zonal, bi-communal federation, which would benefit all 
Cypriots as well as the wider region. Greek Cypriot leader Nicos 
Anastasiades and Turkish Cypriot leader Mustafa Akinci have made 
considerable progress in their negotiations over the last two years 
toward achieving a settlement. These negotiations are the best chance 
in decades to achieve a lasting and comprehensive solution.

    Question 4. We have an opportunity to achieve a peaceful resolution 
of the long festering and untenable situation in Cyprus. Positive 
Turkish engagement and support of this process is vital, as is that of 
International Organizations and the U.S.

   Do you support a reunified Cyprus with a single sovereignty, single 
        international personality and single citizenship; and with its 
        independence and territorial integrity safeguarded as described 
        in the relevant U.N. Security Council resolutions?

    Answer. In their February 2014 Joint Declaration, Greek Cypriot and 
Turkish Cypriot leaders agreed to negotiate a settlement based on a bi-
zonal, bi-communal federation rooted in political equality. They also 
agreed that a reunified Cyprus, as a member of the United Nations and 
of the European Union, would maintain a single international legal 
personality, a single sovereignty, and a single united Cyprus 
citizenship. The United States continues to support Cypriot-led, UN-
facilitated efforts to achieve a negotiated settlement based on these 
principles and those established through relevant United Nations 
Security Council Resolutions and other high-level agreements.

    Question 5. We have an opportunity to achieve a peaceful resolution 
of the long festering and untenable situation in Cyprus. Positive 
Turkish engagement and support of this process is vital, as is that of 
International Organizations and the U.S.

   Will you maintain U.S. high-level engagement on this issue?

    Answer. Yes. The United States supports the reunification of Cyprus 
as a bi-zonal, bi-communal federation consistent with UN Security 
Council Resolutions. If confirmed, my role would be to advance the 
longstanding U.S. policy of supporting reunification efforts. The 
administration has continued high-level U.S. engagement in support of 
current settlement talks: Secretary Tillerson telephoned Greek Cypriot 
leader Nicos Anastasiades and Turkish Cypriot leader Mustafa Akinci 
early in his tenure, and in March Under Secretary for Political Affairs 
Tom Shannon hosted UN Special Advisor Espen Barth Eide for 
consultations in Washington and later met with Republic of Cyprus 
Foreign Minister Ioannis Kasoulides. As a friend to all Cypriots, the 
United States engages with all parties, and I would continue to 
encourage all relevant stakeholders--including Greece and Turkey--to 
negotiate constructively to reach a just and lasting settlement.

    Question 6. While Turkey remains a critical NATO ally, Turkish 
President Erdogan recently consolidated his power through a referendum 
the OSCE assessed suffered from a lack of transparency among other 
concerns. According to the Committee to Protect Journalists, Turkey was 
the top jailer of journalists worldwide. What steps do you think the 
United States should take to directly address these human rights 
concerns in Turkey?

    Answer. The United States remains committed to a strong bilateral 
relationship with Turkey. It is in the U.S. national interest for 
Turkey to be a stable, prosperous, and reliable ally. The United States 
has long supported Turkey's democratic development. Respect for the 
rule of law, freedom of the press, and transparency are pillars of a 
successful democracy and provide Turkey with the potential for 
expanding its partnership with the United States. If confirmed, I will 
raise these important points directly with senior Turkish officials.

    Question 7. In its 2016 National Drug Threat Assessment, the Drug 
Enforcement Administration (DEA) identified Mexican transnational 
criminal organizations as the ``greatest criminal drug threat'' to the 
United States. As you know, the State Department plays a central role 
in coordinating U.S. counternarcotics assistance and Mexican criminal 
organizations continue to illegally traffic South American cocaine and 
a growing volume of Mexican-produced heroin and Mexican- and Chinese-
produced fentanyl into the U.S.--which is fueling opioid addiction and 
an alarming number of overdoses across the U.S.

   As we cannot resolve this challenge alone, if confirmed, what 
        strategies will you employ to work with the Government of 
        Mexico to combat these criminal organizations and the illegal 
        drug trade?

    Answer. Building on prior security collaboration and under 
Secretary Tillerson's leadership, it is my understanding the State 
Department is working with the Government of Mexico to identify new 
opportunities to combat transnational criminal organizations, including 
by focusing on disrupting their business model. This includes exploring 
new ways to strengthen criminal investigations of money laundering, 
build Mexico's capacity to criminally prosecute and sanction financial 
crimes, and work jointly on detecting and interdicting bulk cash 
shipments from the United States into Mexico.
    The United States and Mexico are working together with Canada 
through the North American Dialogue on Drug Policy to develop a greater 
understanding of drug flows and drug threats within North America and 
are working more closely to address them. For example there is 
agreement to improve cooperation by: (1) sharing results of research 
and analysis of heroin, fentanyl, methamphetamine, and precursor 
chemicals; (2) exploring ways to better track cross-border financial 
transfers; and (3) coordinating our messaging to countries outside of 
North America that impact the illicit opioid threat in our continent.

    Question 8. Violence in Mexico, particularly the homicide rate has 
increased dramatically over the past year. Alarmingly, Mexico has seen 
an increase of targeted attacks against journalists and media outlets. 
Mexican courts have failed to successfully prosecute and convict 99 
percent of cases that involve journalists being killed. A free press 
and the freedom of speech form the bedrock of any democratic society. 
We have a number of programs through the State Department aimed at both 
supporting free press in Mexico and strengthening the rule of law.

   Do you believe these programs are effective?

    Answer. Yes, but they can be improved. U.S. programs have been 
effective, and if confirmed, I will ensure the Department of State 
continues to work with Mexico to improve them. We should remain 
committed to working with Mexico on supporting a free press and 
strengthening the rule of law. USAID and the State Department's Bureau 
of Democracy, Human Rights, and Labor have played a key role in 
supporting the Government of Mexico in standing up its Protection 
Mechanism that provides protection measures to more than 600 human 
rights defenders and journalists. If confirmed, I will advocate for 
increased protection and apply lessons learned from international best 
practices in protecting freedom of expression. I support USAID's 
engagement with civil society groups that advocate for threatened human 
rights defenders and journalists.
    In addition to these programs, I will consistently raise the issue 
of press freedom and rule of law with Mexican officials and in public 
messaging.
    As Mexico has embarked on an essential set of reforms to its 
justice sector, the United States, through the Merida Initiative, has 
provided essential support by targeting every facet of the criminal 
justice system, including: law enforcement professionalization, 
strengthening judicial institutions, training prosecutors and judges, 
and improving the corrections system.

    Question 9. Do you believe that the United States should commit 
resources and attention to strengthening institutions in Mexico 
including a strong, independent judiciary?

    Answer. Yes. Through the Merida Initiative, the United States and 
Mexico have forged a multi-faceted partnership to combat organized 
crime and drug trafficking and to support Mexico's efforts to 
strengthen its security institutions, enhance rule of law, improve 
border security, and promote respect for human rights. A transparent, 
efficient, and effective criminal justice system in Mexicao is 
essential to the administration's goal of dismantling transnational 
criminal organizations. It also strengthens the rule of law by 
protecting due process, promoting assistance to crime victims, and 
strengthening human rights. As Mexico has embarked on this essential 
set of reforms, the United States has provided essential support by 
targeting every facet of the criminal justice system, including: law 
enforcement professionalization, strengthening judicial institutions, 
training prosecutors and judges, and improving the corrections system. 
If confirmed, I will ensure the Department of State continues to work 
with Mexico in these important areas.

    Question 10. How do you plan to engage with the Government of 
Nicaragua?

    Answer. The Department of State has repeatedly expressed concerns 
about the state of democracy in Nicaragua. Previous U.S. Government 
statements have consistently criticized the flawed electoral process, 
which precluded the possibility of free and fair elections. If 
confirmed, I would ensure the Department of State continues to press 
the Nicaraguan Government to uphold democratic practices, including 
press freedom and respect for universal human rights, consistent with 
its commitments under the Inter-American Democratic Charter.
    At the same time, the U.S. Government should continue to advance 
U.S. national security and economic interests in Nicaragua through 
engagement with the Nicaraguan Government, civil society, and private 
sector on issues such as countering illegal migration, countering 
narco-trafficking, and ensuring a favorable climate for U.S. 
businesses.
    Despite being the second poorest country in the hemisphere, 
Nicaragua enjoys a robust trade relationship with the United States. 
Since the Dominican Republic-Central America-United States Free Trade 
Agreement entered into force in 2006, U.S. exports to Nicaragua have 
increased over 100 percent from $625 million in 2005 to $1.47 billion 
in 2016, supporting almost 9,000 jobs in the United States.
    If confirmed, I will continue to strengthen the U.S. partnership 
with the Nicaraguan people and work on their behalf to achieve a more 
prosperous, secure, and democratic Nicaragua.

    Question 11. Do you believe we should do more to empower civil 
society in Nicaragua?

    Answer. Strong civil society organizations (CSOs) are critical to 
strengthening institutions and building a vibrant and functioning 
democracy. Nicaragua's democracy and human rights CSOs struggle to 
remain operational in a country that has restricted political space.
    USAID supports media programs that mentor young journalists and 
increase citizen advocacy for independent media, the right to freedom 
of expression, and access to public information. USAID programs also 
teach cybersecurity techniques to help protect CSO members and their 
organizations.
    Department of State programs that support civil society seek to: 
improve citizen security through community engagement, prevent drug 
abuse and violence among at-risk youth, prevent trafficking in persons 
through education and raising awareness, increase advocacy of the rule 
of law, and prevent domestic violence and improve services for victims.

    Question 12. The US and Taiwan have maintained a strong and 
mutually beneficial relationship based on the Taiwan Relations Act 
(Public Law 96-8) and Six Assurances. Recognizing Taiwan's capacity and 
willingness to contribute to important global issues, Congress has 
passed legislation requiring the State Department to support Taiwan's 
participation in international organization such as the World Health 
Organization (WHO). After Taiwan first woman president Tsai Ing-Wen 
took office last year, Taiwan has experienced increasing pressure from 
Beijing constricting its participation in international organizations. 
How do you and the administration plan to support Taiwan's 
international participation?

    Answer. If confirmed, I will support Taiwan's membership in 
international organizations that do not require statehood. In 
organizations that require statehood for membership, I will support 
Taiwan's meaningful participation, and this includes ICAO, INTERPOL, 
WHO, and the more than 60 international organizations in which Taiwan 
participates. I am committed to supporting Taiwan as it seeks to expand 
its already significant contributions to addressing global challenges.
    I believe the United States has a deep and abiding interest in 
cross-Strait peace and stability. The benefits that stable cross-Strait 
ties have brought to both sides of the Taiwan Strait, the United 
States, and the region have been important. Both sides of the Taiwan 
Strait should understand the value of stable cross-Strait ties and work 
to establish a basis for continued peace and stability. If confirmed, I 
will encourage authorities in Beijing and Taipei to engage in 
constructive dialogue that seeks a peaceful resolution of differences 
acceptable to the people on both sides of the Taiwan Strait.

    Question 13. How do you plan to engage with the relatively new 
Haitian Government?

    Answer. If confirmed, I will work to understand the top priorities 
of the new Haitian administration. Ongoing U.S. support for job 
creation initiatives that create opportunities beyond the capital of 
Port-au-Prince can help improve political and economic conditions in 
Haiti.
    The scheduled termination of the UN Stabilization Mission in Haiti 
(MINUSTAH) in mid-October and transition to a successor mission 
focusing on the rule of law, police development, and human rights is an 
important opportunity for Haiti to increasingly take responsibility for 
maintaining a stable security environment with UN Police support.May 9, 
2017

    Question 14. What changes do you think can be made in our 
diplomatic and development efforts to best utilize American resources 
and personnel in Haiti?

    Answer. With a new, democratically-elected government in Haiti and 
a Haitian President who is keenly familiar with the role that the 
private sector and foreign direct investment can play in building 
sustainable economic growth, there is a window of opportunity to lessen 
Haiti's dependence on foreign aid.
    If confirmed, I would urge Haiti to pursue its development and 
growth priorities. That means taking steps to attract and increase 
domestic and foreign investment, which will in turn fuel economic 
opportunity and growth and, ultimately, generate revenue for the 
Haitian state.
    In the near-to-medium term, however, Haiti will continue to need 
the support of its international partners, including the United States, 
to address the economic, social, and security challenges facing the 
country. U.S. assistance plays an important role in addressing these 
goals.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to John Sullivan by Senator Marco Rubio

    Question 1. What role should universal values, including human 
rights, the right to religious freedom, and the promotion of 
representative democracy and freedom of the press, play in U.S. foreign 
policy and determining the U.S. national security interest?

    Answer. As I said in my testimony before the committee, I believe 
our greatest national asset is our commitment to the fundamental values 
expressed at the founding of our nation: the rights to life, liberty, 
and the pursuit of happiness. These basic human rights are the bedrock 
of our republic and at the heart of American leadership in the world.

    Question 2. Do you commit to supporting U.S. sanctions against the 
Maduro Government in Venezuela? Would you support expanding U.S. 
sanctions against the Maduro Government?

    Answer. I am committed to evaluating on an ongoing basis the range 
of foreign policy tools at our disposal that can best achieve our 
objectives, enhance our national security, and improve the dire 
situation in Venezuela. These include sanctions under Executive Order 
13692, which implements the Venezuela Defense of Human Rights and Civil 
Society Act. Sanctions under that Executive Order target specific 
persons, including those involved in human rights abuses or violations, 
undermining democratic processes or institutions, and public 
corruption, among other things. Such U.S. sanctions do not target the 
Venezuelan people or economy as a whole.

    Question 3. Do you commit to working with regional partners, as 
well as with regional bodies such as the Organization of American 
States (OAS), to restore democracy in Venezuela?

    Answer. Yes. The United States is working with its international 
partners to build consensus for a peaceful solution and to see the re-
establishment of democratic norms in Venezuela. If confirmed, I will 
continue to prioritize these efforts. On April 26, the United States 
joined a majority of countries in the hemisphere in adopting an OAS 
resolution calling for an emergency meeting of foreign ministers to 
discuss the worsening situation in Venezuela, including the 
humanitarian situation. This follows a U.S.-supported resolution 
condemning recent actions taken by the Venezuelan Supreme Court to 
undermine the separation of powers and urging the Government of 
Venezuela to restore full constitutional authority to the National 
Assembly.
    The U.S. Government should continue to call for the release of all 
political prisoners, the publication and implementation of an electoral 
calendar to achieve a political resolution to this crisis, as well as 
respect for the National Assembly.

    Question 4. If and when Venezuela enters a post-Maduro era and also 
returns to the path of democracy, do you commit to supporting foreign 
assistance funding to hasten the country's return to self-
determination, representative democracy, and a free-market economy?

    Answer. Yes. The U.S. Government wants the Venezuelan people to 
thrive under representative democracy. The FY 2017 appropriation 
provides support for democracy in Venezuela, consistent with current 
USAID programs.

    Question 5. Do you support current U.S. sanctions against Russia? 
Do you believe that U.S. sanctions should remain in place until Crimea 
is rightfully returned to Ukraine and Russia stops supporting 
separatists in eastern Ukraine?

    Answer. I understand United States sanctions are carefully 
coordinated with those of our European partners to impose costs on 
Russia for its aggression in Ukraine and its occupation of Crimea. 
These sanctions have helped discourage Russia and the separatists it 
supports from attempting to seize more Ukrainian territory and helped 
keep Russia at the table to negotiate a peaceful resolution under the 
Minsk Agreements.

    Question 6. Will you pledge to implement fully the Sergei Magnitsky 
Act and support the designation of additional Russian officials for 
their roles in human rights abuses as the U.S. Government obtains new 
evidence of such abuses?

    Answer. Yes. If confirmed, I will support the Department's 
implementation of the Sergei Magnitsky Act, continuing the work the 
Department has done since 2013 to list anyone who meets the criteria 
set forth in the Act. The Department believes the Act is a valuable 
tool to help combat impunity for gross violations of human rights in 
Russia. The Russian people, like people everywhere, deserve a 
government that supports transparency and accountability, equal 
treatment under the law, and the ability to exercise their rights 
without fear of retribution.

    Question 7. Would you commit to supporting the continuation of the 
State Department's efforts to empower civil society organizations in 
Russia and other authoritarian countries around the world?

    Answer. Yes. If confirmed, I will continue the Department of 
State's efforts to empower civil society in Russia. The Department 
continues to raise in public statements and private discussions our 
serious concerns about the human rights situation in Russia. Although 
the space for civil society and free media in Russia has become 
increasingly restricted, Russian organizations and individuals continue 
to express a desire to engage with the United States. As long as this 
continues to be the case, the United States will support opportunities 
for direct interactions between Russians and Americans, including 
through peer-to-peer, educational, cultural, and other regional 
programs that provide exchanges of best practices and ideas on themes 
of mutual interest.
    The Russian people, like people everywhere, deserve a government 
that supports an open marketplace of ideas, transparent and accountable 
governance, equal treatment under the law, and the ability to exercise 
their rights without fear of retribution. The United States continues 
to call on the Government of Russia to uphold its international 
obligations and commitments to promote and protect human rights and 
fundamental freedoms, and to cease restrictions on the work of civil 
society organizations in Russia.

    Question 8. If Congress passes a bill that imposes visa bans and 
asset freezes on those responsible for the commission of serious human 
rights abuses in any territory, forcibly occupied or otherwise 
controlled by Russia, would you advise the President to sign it?

    Answer. The Secretary has been clear that our foreign policy will 
continue to be guided by our values, including the defense of human 
rights. Subject to the need to review the precise terms of any 
legislation before making a recommendation, if confirmed I am committed 
to doing all we can as a nation to promote and protect human rights in 
the areas described.

    Question 9. The United States has long served as a global leader in 
advancing women's equality and empowerment. Central to this is the work 
of the Office of Global Women's Issues in the State Department. Can you 
assure us that this administration will maintain the Office of Global 
Women's Issues and the critical programming, policy and diplomatic work 
that it does?

    Answer. The integration of gender into the State Department's 
foreign policy efforts has never been more critical. The United States 
has put gender equality and the advancement of women and girls at the 
forefront of U.S. foreign policy, and the Secretary's Office of Global 
Women's Issues has played a central role in ensuring the Department has 
the know-how and the appropriate processes to strategically incorporate 
gender into policies and programs. As I stated at my confirmation 
hearing, you have my commitment that women's issues will remain a 
priority of the Department.

    Question 10. Will you support ensuring that women's issues, such as 
ending child marriage and promoting access of girls to education, are 
included in larger foreign policy discussions, where appropriate?

    Answer. Yes. The incorporation of gender considerations into 
foreign policy planning and execution is strategic and imperative. It 
is a fundamental tenet of our foreign policy that when women are able 
to participate politically and economically to the same degree as men, 
societies are more prosperous, stable and secure. As I told Senator 
Shaheen, ``women's health, women's education, women's empowerment, pay 
dividends many times over.'' You have my commitment that these issues 
will remain a priority of the Department.

    Question 11. Will it be your policy and intention to honor the 
pledges, commitments, and obligations made by your predecessors at the 
U.S. Department of State with respect to American participation in 
international fairs and expositions abroad occurring prior to September 
30, 2017?

    Answer. I am not familiar with any pledges, commitments, or 
obligations made by previous State Department officials with respect to 
American participation in international fairs and exhibitions. If 
confirmed, I will be happy to work with you and you staff to learn more 
about your concerns and what resolutions are permissible under current 
law.

    Question 12. Enacted in 1979, the Taiwan Relations Act remains 
cornerstone of relations between the United States and Taiwan. For 
decades, both parties have benefited from a strong security and 
economic relationship. However, this relationship has not benefited 
from sufficient high-level communication due to the self-imposed 
restrictions that the United States maintains on high-level visits with 
Taiwan. Will you commit to encouraging exchanges between the United 
States and Taiwan at all levels? How will you push this forward?

    Answer. I understand that many U.S. officials, including Cabinet-
level officials, have visited Taiwan when they have had substantive 
business to conduct in order to further U.S.-Taiwan relations as 
stipulated by the Taiwan Relations Act. These visits are consistent 
with the U.S. Government's one-China policy.
    Also, consistent with longstanding practice, the United States 
allows transits by Taiwan leaders to provide for the safety, security, 
comfort, and dignity of the traveler. Senior Taiwan leaders 
occasionally travel through North America to and from destinations in 
Central and South America and the Caribbean.
    If confirmed, I will continue to encourage exchanges between the 
United States and Taiwan to advance substantive cooperation across all 
areas of our relationship.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to John Sullivan by Senator Ron Johnson

    Question 1. It is my understanding that there are currently around 
75,500 employees at the Department of State, made up of around 11,000 
Civil Service employees, 14,000 Foreign Service employees and 50,500 
locally employed staff. How has the total number of State Department 
employees, as well as the subcategories of Civil Service, Foreign 
Service and locally employed, changed over time? Can you provide year-
by-year State Department employment numbers as far back as possible for 
total number of employees as well as for the three aforementioned 
subcategories?

    Answer. Attached are year-by-year State Department employment 
numbers showing the total number of employees as well as Civil Service, 
Foreign Service, and locally employed staff.


                                      Department of State Employment Counts
----------------------------------------------------------------------------------------------------------------
                                               Civil Service   Foreign Service                       Locally
                    Year                         Full-Time         Full-Time    Total Full-Time   Employed  (LE)
                                                 Permanent        Permanent         Permanent         Staff
----------------------------------------------------------------------------------------------------------------
FY1961*                                                5,315            8,712           14,027             9717
FY1962*                                                4,865            8,809           13,674             9969
FY1963*                                                5,103            9,127           14,230             9997
FY1964*                                                4,934            9,154           14,088            10135
FY1965*                                                5,061            9,493           14,554             9574
FY1966*                                                4,077           10,904           14,981            10340
FY1967*                                                3,717           11,351           15,068            12312
FY1968*                                                3,717           10,272           13,989            11334
FY1969                                                 3,749            9,735           13,484            10967
FY1970                                                 3,746            8,932           12,678            10702
FY1971                                                 3,698            8,994           12,692            10618
FY1972                                                 3,523            8,588           12,111            10491
FY1973                                                 3,646            8,313           11,959            10486
FY1974                                                 3,611            8,526           12,137            10538
FY1975                                                 3,588            8,719           12,307            10091
FY1976                                                 3,440            8,969           12,409            10158
FY1977                                                 3,462            8,993           12,455            10164
FY1978                                                 3,290            9,207           12,497            10183
FY1979                                                 3,347            9,065           12,412             9718
FY1980                                                 3,438            9,236           12,674             9374
FY1981                                                 3,634            9,378           13,012             9283
FY1982                                                 3,764            9,406           13,170             9244
FY1983                                                 3,952            9,395           13,347             9240
FY1984                                                 4,314            9,153           13,467             9399
FY1985                                                 4,500            9,441           13,941             9605
FY1986                                                 4,448            9,637           14,085             9637
FY1987                                                 4,579            9,490           14,069             9490
FY1988                                                 4,677            9,232           13,909             9455
FY1989                                                 4,933            8,918           13,851             9165
FY1990                                                 5,197            8,814           14,011             8933
FY1991                                                 5,181            8,830           14,011             9379
FY1992                                                 5,318            8,896           14,214             9412
FY1993                                                 5,622            8,792           14,414             9412
FY1994                                                 5,436            8,512           13,948             8512
FY1995                                                 5,208            8,207           13,415             8207
FY1996                                                 5,247            7,936           13,183             9555
FY1997                                                 5,225            7,724           12,949             9508
FY1998                                                 5,165            7,769           12,934             9510
FY1999                                                 5,498            8,169           13,667             7192
FY2000                                                 7,200            9,283           16,483              N/A
FY2001                                                 7,193            9,326           16,519              N/A
FY2002                                                 7,368           10,089           17,457              N/A
FY2003                                                 7,731           10,579           18,310              N/A
FY2004                                                 7,831           10,988           18,819              N/A
FY2005**                                               8,092           11,238           19,330            37924
FY2006**                                               8,270           11,397           19,667            37092
FY2007**                                               8,784           11,467           20,251            37089
FY2008**                                               9,328           11,656           20,984            37089
FY2009**                                               9,614           12,257           21,871            41658
FY2010**                                              10,039           13,008           23,047            43632
FY2011**                                              10,645           13,518           24,163            44491
FY2012**                                              10,760           13,774           24,534            45475
FY2013**                                              10,960           13,833           24,793            45970
FY2014**                                              10,874           13,984           24,858            46648
FY2015**                                              10,921           13,941           24,862            48033
FY2016**                                              11,147           13,980           25,127            49736
3/31/2017                                             10,978           14,029           25,007            49736
----------------------------------------------------------------------------------------------------------------
*``Full-time'' employees were reported between 1961 and 1968
**LE Staff counts included both Direct Hires and Personal Service Agreement (PSAs) contractors after 2005
***FY 2000 reflects integration of U.S. Information Agency (USIA) and Arms Control and Disarmament Agency (ACDA)
  into State

    Question 2. Can you provide year-by-year statistics going as far 
back as possible on the number of Freedom of Information Act (FOIA) 
requests submitted to the State Department and to the federal 
government as a whole?  Can you also provide the annual number of 
backlogged FIOA requests for the State Department and the federal 
government as a whole for as far back as possible? 

    Answer. Attached are current and historical data on FOIA requests 
submitted to the Department of State and to the federal government as a 
whole. I understand that the Department has taken a series of concerted 
actions to improve the program and reduce the backlog. The Department 
and other executive branch agencies publish a number of annual reports 
regarding their FOIA processing efforts. The Government-wide 
information can be found at https://www.justice.gov/oip/reports-1. If 
confirmed, I look forward to working with you to continue to improve 
the Department's FOIA responsiveness.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________


           Responses to Additional Questions for the Record 
          Submitted to John Sullivan by Senator John Barrasso

    Question 1. If confirmed, will you support the elimination of all 
U.S. funding for the United Nations' Green Climate Fund?

    Answer. The administration's FY 2018 budget does not include 
funding for the Green Climate Fund (GCF). In general, the United States 
should ensure that all assistance to foreign countries and 
international organizations advances U.S. interests.

    Question 2. If confirmed, will you support the elimination of all 
U.S. funding for the Global Climate Change Initiative?

    Answer. The FY 2018 request does not include funding for the Global 
Climate Change Initiative (GCCI). In general, the United States should 
ensure that all assistance to foreign countries and international 
organizations advances U.S. interests.

    Question 3. Would you recommend that the United States stay in any 
agreement that would strengthen foreign economies at the expense of 
American workers and line the pockets of developing nations with 
billions of American taxpayer dollars?

    Answer. The United States should prioritize U.S. interests in all 
of its interactions with foreign countries and should evaluate possible 
participation in international agreements on that basis.

    Question 4. Do you support the administration submitting the 
international climate change agreement developed in Paris to the Senate 
for its advice and consent?

    Answer. I understand the United States submitted an instrument of 
acceptance to the Paris Agreement in September 2016. The Agreement 
entered into force in November 2016. I have not studied closely the 
legal issues related to the United States' acceptance of the Paris 
Agreement and would want the opportunity to consult with the State 
Department's lawyers before offering a considered opinion.

    Question 5. In your legal opinion, is the Paris climate agreement a 
treaty? Why or why not?

    Answer. I have not studied closely the legal issues related to the 
United States' acceptance of the Paris Agreement and would want the 
opportunity to consult with the State Department's lawyers before 
offering a considered opinion.

    Question 6. Do you think it serves the interests of this country to 
establish a precedent that international commitments are made in a 
manner designed to thwart the constitutionally derived oversight role 
of the U.S. Senate?

    Answer. If confirmed, I look forward to consulting with the Senate 
Foreign Relations Committee on the respective roles of the Executive 
and Legislative Branches in assessing the appropriate course for 
concluding any international agreement.

    Question 7. Do you believe staying in an agreement that was 
specifically constructed to thwart the United States Senate's 
constitutional role of advice and consent would make it more or less 
likely for similar actions to happen again in the future?

    Answer. If confirmed, I look forward to consulting with the Senate 
Foreign Relations Committee on the respective roles of the Executive 
and Legislative Branches in assessing the appropriate course for 
concluding any international agreement.

    Question 8. As Deputy Secretary of State, would you ensure that the 
State Department is promoting all forms of energy projects across the 
globe, including oil, gas, and coal?

    Answer. The State Department will use its diplomatic tools to 
promote energy projects internationally, including oil, gas, and coal. 
The State Department will work to make sure that U.S. investors and 
industry from all segments of the energy sector compete on a level 
playing field with foreign competition in emerging markets.

    Question 9. If confirmed, are you committed to opposing all 
recognition of a Palestinian state in international bodies and 
organizations, outside of a peace agreement with Israel?

    Answer. Yes. The United States position is that the only way for 
the Palestinians to achieve real statehood is through a mutually 
acceptable peace agreement with Israel. If confirmed, I would recommend 
that the President continue to oppose Palestinian membership in 
international bodies and organizations in the absence of a mutually 
acceptable peace agreement with Israel.

    Question 10. How will you hold the Palestinians accountable for 
their efforts to use the United Nations, its agencies, and affiliated 
organizations to bypass the peace process?

    Answer. The U.S. Government's approach to managing issues related 
to Israeli-Palestinian peace efforts in multilateral fora is guided by 
several priorities: supporting Israel's affirmative efforts to 
normalize its role in the international community; preserving space for 
a mutually acceptable peace agreement between the two parties; 
combatting anti-Israel bias and efforts to delegitimize Israel in the 
UN system; protecting the United States' ability to fund and 
participate in international organizations; and countering efforts to 
expand the scope of actions against Israel.
    If confirmed, I would continue to vigorously pursue this approach, 
oppose Palestinian membership in UN organizations prior to a mutually 
acceptable peace agreement with Israel, and support the enforcement of 
laws prohibiting funding to international organizations that do so.

    Question 11. Do you support multilateral institutions providing 
financing for all energy resources especially the most affordable, 
reliable and abundant forms of energy?

    Answer. The Department of the Treasury has the jurisdiction for the 
formulation and implementation of the U.S. stance on lending policies 
at multilateral financial and development institutions. The Department 
of State provides foreign policy guidance and technical expertise 
during this process. The Department supports an all-of-the-above energy 
strategy, which will inform our interaction within the interagency on 
multilateral institutions' financing energy projects.

    Question 12. Will you commit to ensuring that multilateral 
institutions allow public financing of high efficiency power stations 
fueled by coal?

    Answer. The Department of the Treasury has the jurisdiction for the 
formulation and implementation of the U.S. stance on lending policies 
at multilateral financial and development institutions. As the 
administration works to address multilateral institutions' policies 
affecting financing for energy projects, the Department of State will 
engage in the interagency to underscore the importance of considering 
all types of energy.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to John Sullivan by Senator Edward J. Markey

    Question 1. Do you agree with Secretary Tillerson that the best way 
to resolve the North Korean nuclear threat is through direct 
negotiations? Or do you share Vice President Pence's belief that North 
Korea must agree to denuclearize before any negotiations occur?

    Answer. Our objective remains a denuclearized Korean peninsula. We 
remain committed to directly addressing the threat North Korea's UN-
proscribed ballistic missile and nuclear programs pose to peace and 
security. The United States remains open to credible talks on the 
denuclearization of the Korean peninsula; however conditions must 
change before there is any scope for talks to resume.
    As Secretary Tillerson said in New York, ``We will not negotiate 
our way back to the negotiating table with North Korea. We will not 
reward their violations of past resolutions. We will not reward their 
bad behavior with talks. We will only engage in talks with North Korea 
when they exhibit a good-faith commitment to abiding by the Security 
Council resolutions and their past promises to end their nuclear 
programs.''
    It is important that the leaders of North Korea realize that their 
current pathway of nuclear weapons and escalating threats will not lead 
to their objective of security and economic development. That pathway 
can only be achieved by denuclearizing and abandoning their weapons of 
mass destruction.

    Question 2. Do you think the United States should stay in the Paris 
agreement?Do you think climate change should remain a priority for U.S. 
international engagement?

    Answer. I understand that there is an ongoing discussion within the 
administration concerning continued participation in the Paris 
Agreement. As a general matter, the United States is best served and 
its interests protected when it has a seat at the table.
    Climate change is a global problem that requires a global response. 
No one country is going to solve it alone. The President and the 
Secretary have stated that they want a foreign policy that reflects 
American interests and that works for America. Global leadership should 
not come at the expense of U.S. competitiveness or our national 
security.

    Question 3. What value do you believe America's global climate 
leadership has in terms of national security and economic 
competitiveness?

    Answer. Climate change is a global problem that requires a global 
response. No one country is going to solve it alone. The President and 
the Secretary have stated that they want a foreign policy that reflects 
American interests and that works for America. Global leadership should 
not come at the expense of U.S. competitiveness or our national 
security.

    Question 4. What diplomatic costs and risks do you foresee if the 
United States were to withdraw from the Paris Agreement?

    Answer. More than 190 countries signed the Paris Agreement, 
indicating their intention to join, and 145 countries have already 
joined. An analysis should include the impact on U.S. relations with 
those countries.

    Question 5. Do you believe the United States should continue to 
provide technical assistance to developing nations to ensure they 
monitor their greenhouse gas emissions according to the highest 
standards possible to help ensure that we know whether they are meeting 
their commitments under the Paris Agreement?

    Answer. I understand that the administration is reviewing U.S. 
international climate change policy, including climate-related 
assistance and this question will be looked at in that context. In 
general, the United States should ensure that all assistance to foreign 
countries advances U.S. interests.

    Question 6. If confirmed what will you do to ensure robust U.S. 
diplomatic engagement with all the parties to preserve peace and 
stability in Northern Ireland?

    Answer. The United States remains firmly committed to the Northern 
Ireland Peace Process, including the 1998 Good Friday Agreement and 
subsequent agreements. I believe we should continue to engage all 
parties and communities to work together to build a better, shared 
future. Our Consulate in Belfast promotes reconciliation, two-way trade 
and investment, and cultural exchanges.

    Question 7. Do you agree that the United States must take the lead 
to protect members of the LGBT community from discrimination and abuse 
worldwide?

    Answer. Yes. As is made clear in the founding documents of the 
United States, all people should be protected from discrimination and 
violence, and must be free to exercise their universal rights, 
including their fundamental freedoms of expression, association, 
peaceful assembly, and religion. Discrimination and violence against 
members of any community or group hampers economic development, public 
health, and social cohesion.
    Protecting universal human rights is a central element of U.S. 
foreign policy and national security interests, and if confirmed I will 
work to advance human rights for all persons.

    Question 8. What steps do you think the State Department should 
take to strengthen that leadership?

    Answer. I know that the State Department is already working to 
combat discrimination and violence against members of the LGBT 
community globally, as an integral component of the Department's human 
rights and democracy strategy. This includes efforts aimed to respond 
to discriminatory legislation through bilateral diplomacy, empowering 
human rights defenders to address these challenges, building consensus 
with like-minded government partners, and elevating the voices of the 
most at risk in partnership with a broad coalition of allies, including 
in the private sector.

    Question 9. Do you believe that it serves U.S. national interest to 
cut the State Department's budget by nearly a third?

    Answer. As Secretary Tillerson told the Department workforce in a 
written letter, the State Department's budget request addresses the 
challenges to American leadership abroad and the importance of 
defending American interests and the American people. It acknowledges 
that U.S. engagement must be more efficient, that our aid must be more 
effective, and that advocating the national interests of our country 
must always be our primary mission. Additionally, the budget is an 
acknowledgment that development needs are a global challenge to be met 
not just by contributions from the United States, but through greater 
partnership with and contributions from our allies and others. The 
Secretary has initiated a process to draw a new budget blueprint that 
will allow us to shape a Department ready to meet the challenges that 
we will face in the coming decades. We will do this by reviewing and 
selecting our priorities, using the available resources, and putting 
our people in a position to succeed.

    Question 10. Many of the President's proposed cuts target foreign 
aid programs. While many people mistaken assume that foreign aid takes 
up a large proportion of the overall federal budget, it actually 
accounts for less than one percent. And while the United States gives 
more in foreign aid than any other country in absolute terms, we give 
less than other countries as a percentage of our economy.
    When I visited West Africa last year, I saw the crucial work that 
brave Americans working for the U.S. Agency for International 
Development were doing. As you said when we met, seeing crates being 
unpacked with the words, ``from the American people'' written on them 
has a powerful impact. So it is important to remember that this is not 
just charity--foreign aid expands our influence without shedding a drop 
of blood. Doing good makes us great and keeps us safe.

   Do you believe that foreign aid and the U.S. Agency for 
        International Development play important roles in preserving 
        U.S. global influence and serving U.S. national interests?

    Answer. The State Department and USAID work on behalf of the 
American people to further our national security objectives while 
promoting our values around the world. As Secretary Tillerson said when 
he came before this committee, to achieve the stability that is 
foundational to peace and security in the 21st century, American 
leadership must not only be renewed, it must be asserted. Our foreign 
assistance is a critical component of this and it keeps us safe while 
promoting American leadership and values and supports a more prosperous 
and healthy global community. As the primary implementer of development 
assistance, USAID has a model of partnering with host countries, NGOs, 
the private sector, and other international and multilateral donors, 
which enhances our leadership in the world and our national security. I 
am committed to making the State Department and USAID the preeminent 
force to protect and promote American values in the world, and to 
utilizing foreign assistance to preserve U.S. global influence.

    Question 11. Do you agree with Secretary Tillerson that we should 
deemphasize our values when dealing with regimes that do not share 
them?

    Answer. Secretary Tillerson affirmed at his nomination hearing that 
the U.S. must continue to display a commitment to personal liberty, 
human dignity, and principled action in foreign policy. He assured the 
committee that under his leadership the Department will work 
aggressively to advance human rights for everyone. I certainly agree. 
Our commitment to American values does not waver, no matter what regime 
we are dealing with.

    Question 12. If confirmed as Deputy Secretary, what will you do to 
ensure that the State Department continues to advance democracy, human 
rights, and the rule of law?

    Answer. As I pledged during my confirmation hearing, I am committed 
to making the State Department the preeminent force to protect American 
values and promote American values in the world. And will seek to do so 
using all of the assets available to the Department.

    Question 13. Will you maintain women's rights as a priority for the 
Department, and ensure that women's andgirls' issues are considered in 
every project undertaken by the State Department?

    Answer. The State Department remains committed to continuing the 
important work of advancing the status of women and girls globally 
through diplomatic and programmatic activities. As I stated in my 
testimony, you have my commitment that women's health, women's 
education, women's empowerment, will remain a priority of the 
Department.

    Question 14. Will you pledge to support the law fully and help 
ensure that women, including those raped by ISIS terrorists, and who 
depend on U.S. foreign assistance, will have access to safe abortion 
services if they wish to terminate their pregnancies?

    Answer. If confirmed, I will faithfully execute the law, including 
as it relates to abortion. I understand the Department of State and 
USAID are continually working to ensure maximum effectiveness in 
combating poverty and improving the health and status of women and 
girls, including the survivors of sexual violence. If confirmed, I will 
insure that the Department of State and the U.S. Agency for 
International Development continue to take this issue very seriously.

    Question 15. Will you pledge to ensure that women who depend on 
U.S. foreign assistance who face a life-threatening pregnancy and will 
die without a safe termination procedure will have access to it?

    Answer. If confirmed, I will faithfully execute the law as it 
relates to abortion. I understand the Department of State and USAID are 
continually working to ensure maximum effectiveness in improving the 
health and status of women and girls.

Foreign Service
    Question 16. Your written testimony movingly described your 
personal connection to the Foreign Service and of the sacrifices and 
dangers many of these brave Americans and their families have faced in 
many parts of the world. Your uncle, Ambassador William Sullivan, had 
an extremely distinguished career as an American diplomat. I share your 
admiration for the men and women of the U.S. Foreign Service.
    In visiting countries around the world, I am always impressed with 
the knowledge, judgement, and dedication of Foreign Service personnel. 
And I have seen that these patriotic Americans do their job with skill 
and professionalism regardless of whether they are serving a Democratic 
or a Republican president. The Foreign Service Dissent Channel is 
designed to ensure that a wide range of views are considered in making 
policy. Use of the Dissent Channel does not indicate disloyalty to the 
president or an attempt to undermine his policies.

   As Deputy Secretary, will you ensure that Foreign Service personnel 
        and their families receive the support they need to do their 
        jobs?

    Answer. Yes, that will be an extremely high priority for me. As I 
said in my confirmation hearing, I look forward to participating in 
Secretary Tillerson's review of the mission of the Department of State 
with the intent of bringing the Department into the 21st century to 
address the challenges we face today. If confirmed, my goal will be to 
ensure the Department, including the Foreign Service, is organized and 
has the tools to carry out U.S. foreign policy. That review must 
consider the important sacrifices and essential roles played by Foreign 
Service families in the careers of our diplomatic personnel.

    Question 17. Your written testimony movingly described your 
personal connection to the Foreign Service and of the sacrifices and 
dangers many of these brave Americans and their families have faced in 
many parts of the world. Your uncle, Ambassador William Sullivan, had 
an extremely distinguished career as an American diplomat. I share your 
admiration for the men and women of the U.S. Foreign Service.
    In visiting countries around the world, I am always impressed with 
the knowledge, judgement, and dedication of Foreign Service personnel. 
And I have seen that these patriotic Americans do their job with skill 
and professionalism regardless of whether they are serving a Democratic 
or a Republican president. The Foreign Service Dissent Channel is 
designed to ensure that a wide range of views are considered in making 
policy. Use of the Dissent Channel does not indicate disloyalty to the 
president or an attempt to undermine his policies.

   Will you listen to the views and recommendations of the State 
        Department's career personnel as you formulate your own views 
        on key positions and represent the Department in interagency 
        deliberations?

    Answer. Yes.

    Question 18. Your written testimony movingly described your 
personal connection to the Foreign Service and of the sacrifices and 
dangers many of these brave Americans and their families have faced in 
many parts of the world. Your uncle, Ambassador William Sullivan, had 
an extremely distinguished career as an American diplomat. I share your 
admiration for the men and women of the U.S. Foreign Service.
    In visiting countries around the world, I am always impressed with 
the knowledge, judgement, and dedication of Foreign Service personnel. 
And I have seen that these patriotic Americans do their job with skill 
and professionalism regardless of whether they are serving a Democratic 
or a Republican president. The Foreign Service Dissent Channel is 
designed to ensure that a wide range of views are considered in making 
policy. Use of the Dissent Channel does not indicate disloyalty to the 
president or an attempt to undermine his policies.

   Will you ensure that career State Department employees do not 
        suffer from political retribution for expressing their views 
        through the Dissent Channel and similar mechanisms?

    Answer. Yes, I am fully committed to the Dissent Channel, which is 
established in the Department's Foreign Affairs Manual (FAM). For over 
forty years, the Dissent Channel has served as a vehicle for the State 
Department's U.S. citizen employees to express dissenting or 
alternative views on substantive issues of policy to the Department's 
most senior leadership without fear of penalty. It exists because the 
State Department has a strong interest in facilitating open, creative, 
and uncensored dialogue on substantive foreign policy issues within the 
professional foreign affairs community and a responsibility to foster 
an atmosphere supportive of such dialogue. Pursuant to the FAM, Dissent 
Channel messages, including the identity of the authors, are a most 
sensitive element in the internal deliberative process and are to be 
protected accordingly.

Appointments
    Question 19 The Trump administration has been unusually slow to 
nominate qualified individuals to serve in government. According to the 
Washington Post, out of 556 key positions requiring Senate 
Confirmation, 465, or 83 percent, do not even have a formal nominee.
    The situation is even worse at the State Department, where there 
have only been 10 nominations for 119 positions requiring Senate 
confirmation. That's 91 percent of positions that do not even have a 
formal nominee. Many of these are crucial ambassadorships, including to 
many of our closest allies, such as France, Germany, and South Korea.
    The unfilled positions also include five of six under secretaries 
and all but two one of the Department's 23 regional and functional 
assistant secretaries. They include the Assistant Secretary for 
Diplomatic Security, who ensures the safety of our diplomats and their 
families. And the Under Secretary for Arms Control and International 
Security Affairs, who negotiates nuclear treaties and ensures that 
other countries comply with them.
    This unprecedented lack of personnel makes it hard for foreign 
governments to talk to the United States, and it breeds strategic 
incoherence, since we lack the key people responsible for formulating 
and executing our foreign policy.

   If confirmed as Deputy Secretary, one of your key roles will be 
        management of the Department. How you plan to address this 
        critical failure to fill the Department's vital posts?

    Answer. As I said during my confirmation hearing, I commit, if I am 
confirmed, to making sure that personnel appointments and nominations 
are moved forward as quickly as possible. In the meantime, the State 
Department is fortunate to have a deep bench of career professionals 
ably filling posts across the Department.



                               __________





                               NOMINATION

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:03 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senators Corker, Gardner [presiding], Risch, 
Rubio, Young, Isakson, Portman, Shaheen, Murphy, Kaine, Markey, 
and Merkley.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to this full committee hearing on 
nominations.
    Welcome to the committee, Senator Brown.
    Senator Collins, without further ado, we will turn to you 
to have the privilege of introducing our sole witness today, 
the Honorable Scott Brown, to serve as Ambassador to New 
Zealand and concurrently to the Independent State of Samoa. 
Senator Collins?

               STATEMENT OF HON. SUSAN COLLINS, 
                    U.S. SENATOR FROM MAINE

    Senator Collins. Thank you very much, Mr. Chairman, Ranking 
Member Markey.
    It is my pleasure to introduce the President's nominee to 
be our next Ambassador to New Zealand and Samoa, Senator Scott 
Brown, a leader who has spent much of his life in service to 
our Nation.
    Senator Brown and I worked together as colleagues in the 
United States Senate, and I also consider him to be a valued 
and trusted friend.
    I am proud to introduce him this afternoon and to recommend 
him to serve our next Ambassador to New Zealand.
    In many ways, Senator Brown is an ideal Ambassador for the 
United States as his life's story is a testament to the 
American dream. Scott overcame poverty and violence in his 
childhood. He graduated from college and law school. And he has 
spent more than 3 decades in public service that spans all 
levels of government, as well as serving in uniform and in 
elected office.
    It was at Tufts University where Senator Brown graduated 
cum laude that he first answered the call to serve. He enlisted 
in Massachusetts National Guard in 1979 and later was 
commissioned as an infantry officer through the ROTC program at 
Northeastern University.
    After earning his law degree from Boston College, he 
continued to serve as a member of the JAG Corps.
    During his years in the military, Senator Brown won many 
awards and held numerous leadership positions. Recently he 
retired as a colonel after 35 years of dedicated service in 
both the Massachusetts and Maryland National Guard. His last 
assignment was at the Pentagon where he served as the Deputy to 
the Chief Counsel to the Chief of the National Guard Bureau.
    Scott began his long career in public service as an 
assessor and selectman in the Town of Wrentham, Massachusetts. 
He then served in the Commonwealth's legislature serving both 
as a representative and later as a State senator.
    In 2010, Scott Brown won a special U.S. Senate election. 
During his time in the Senate, he was a model of bipartisanship 
and a devoted advocate for our veterans and our small business 
owners.
    In addition, he ably served on the Senate Armed Services 
Committee, which equipped him with the policy expertise to 
appreciate fully our longstanding defense, diplomatic, and 
intelligence cooperation with New Zealand.
    Throughout his time in the Senate, Scott Brown demonstrated 
leadership in building consensus to achieve common sense 
solutions, and he did so in a very diplomatic way.
    So I believe that those are essential skills for a U.S. 
Ambassador.
    In short, Senator Scott Brown's experiences have prepared 
him so well to represent our Nation as U.S. Ambassador in 
Wellington. I am confident that he will continue to strengthen 
our vital partnerships with New Zealand and Samoa, and I urge 
this committee to support this important nomination.
    Again, it is a great honor to be here before you today to 
support my former colleague and my friend, Scott Brown. Thank 
you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Collins, for those kind 
words of introduction. I know you have a busy schedule, so we 
appreciate your time to be here with you today and look forward 
to the rest of the confirmation hearing.
    And I noticed the Chairman of the full committee.
    So please, feel free to attend to the rest of your 
business, if you would like.
    The Chairman of the full committee, Senator Corker, has 
joined us as well. If you would like to provide a counter to 
those glowing words---- [Laughter.]
    Senator Gardner [continuing]. Chairman Corker, please join 
us at the dais.
    The Chairman.  If I am ever nominated for anything, I want 
her to introduce me. [Laughter.]
    Senator Gardner. Thank you, Chairman Corker.
    Thank you, Senator Collins, for that introduction.
    And though we have had our share in the past of 
disagreements, New Zealand is one of our oldest and staunchest 
allies, a historical ally, around the globe. Our nations 
founded the Australian, New Zealand, United States, or ANZUS, 
alliance in 1951. Our soldiers have fought and died side by 
side in many global conflicts. Many Americans are well familiar 
with the exceptional bravery shown by Kiwi soldiers at historic 
battles like Gallipoli and beyond. The 2010 Wellington 
Declaration and the 2012 Wellington Declaration on Defense 
Cooperation have elevated our relations to a new level.
    Our nations have a robust trade relationship. Major U.S. 
exports to New Zealand include civilian aircraft, refined 
petroleum, autos, and auto parts. And I firmly believe that our 
ties are critical to regional peace and stability, and I look 
forward to hearing Senator Brown's testimony on how to grow 
this vital relationship.
    With that, I will turn to the ranking member, Senator 
Markey of Massachusetts.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    And many thanks to our colleague from Maine, Senator 
Collins, for joining us to introduce Senator Brown.
    Senator Brown, you are a true son of New England, born in 
Maine, now living in New Hampshire and, during the decades in 
between, serving the people of Massachusetts at every level of 
government. Your distinguished career has included stops at 
Wrentham town hall, the Massachusetts statehouse, the halls of 
the United States Senate, and the National Guard.
    Your success in overcoming hardships early in life and then 
reaching the upper echelons of public service is an inspiration 
not only to the children of Massachusetts and our country but 
to the children everywhere that you will be now representing 
our country.
    And I know that you are enormously qualified for this 
position, having been educated at Wakefield High School, Tufts 
University, and Boston College Law School. Like me, your 
education is not tainted by any values or lessons learned 
outside the Commonwealth of Massachusetts. [Laughter.]
    Senator Markey. So we thank you for your service, and we 
thank Gail and your family. They have our heartfelt thanks for 
all of their service to our Commonwealth and to the nation. And 
we congratulate you on your nomination as our Ambassador to New 
Zealand and to Samoa and appreciation for your willingness, 
once again, to serve our country in this new role.
    The United States has closely collaborated with New Zealand 
since World War II as partners promoting security, stability, 
peace and prosperity in the Asia-Pacific and throughout the 
world. Our relationship with New Zealand is absolutely central 
to the security and prosperity of the United States and the 
rest of the Asia-Pacific, a region that enjoys enormous 
opportunities but also faces looming threats to both our 
national security and the peace and stability of the entire 
world. From North Korea's nuclear and missile programs to 
sovereignty disputes in the East and South China Seas to the 
risk of nuclear proliferation, American leadership is essential 
for the Asia-Pacific nations to resolve differences through 
diplomacy and international law rather than through threats and 
intimidation.
    That is why I am glad that you have been willing to accept 
this nomination from the President because I think you are just 
the perfect person at the perfect time to have this job. So 
thank you.
    Mr. Brown. Thank you, Senator.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Markey. And I too want 
to echo the comments. Welcome to the family. Thank you for your 
commitment and service. This is a family effort. It truly is. 
And we appreciate it greatly.
    Senator Portman, Senator Barrasso, Senator Shaheen, I do 
not know if you have any comments before we turn to Senator 
Brown's opening statements.

                 STATEMENT OF HON. ROB PORTMAN,
                     U.S. SENATOR FROM OHIO

    Senator Portman. Just quickly, if I could, Mr. Chairman, to 
echo the comments that you and Senator Markey both made about 
Scott Brown's qualifications for this job. It is a big job 
because he will be, if confirmed--and I feel confident that he 
will--the only U.S. Ambassador really in the region and 
certainly the only one in the New Zealand-Australia area, which 
is an incredibly important role for us. We now have a more 
dangerous and volatile world, and those are two of our best 
allies and have been with us, literally standing with us, in 
conflicts from Afghanistan to Iraq and beyond. So I think it is 
important we have somebody there and someone who has the 
stature of Senator Brown and the relationships, frankly, both 
here in the Senate and throughout the Washington community.
    So I am delighted he is willing to step forward. I have had 
the opportunity meet with Senator Brown and talk at some length 
about some of the issues with New Zealand, including trade 
issues, including issues with regard to our military 
relationship, which is much improved I think over the last 
several years that he wants to continue to build on. He has 
actually served in Afghanistan, as I understand it, at the time 
when New Zealand also had a contingent there and understands 
the importance of working cooperatively with us. Senator Brown 
has some interesting ideas with regard to the relationship 
between New Zealand and China and how the United States needs 
to play a more central role in that region.
    So I think he is going to be the right guy, and it is 
really important for us to have somebody and have a U.S. 
presence in that region. And I am delighted he is willing to 
serve.
    And I thank you, Mr. Chairman, for allowing me to say a few 
comments.
    Senator Gardner. Thank you, Senator Portman.
    Senator Shaheen or Senator Barrasso?
    Without any further hesitation, to Senator Brown for your 
opening statements.

STATEMENT OF SCOTT P. BROWN, OF NEW HAMPSHIRE, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
 AMERICA TO NEW ZEALAND, AND TO SERVE CONCURRENTLY AND WITHOUT 
    ADDITIONAL COMPENSATION AS AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                   INDEPENDENT STATE OF SAMOA

    Mr. Brown. Thank you, Mr. Chairman and Ranking Member 
Markey, members of the committee. It is a great honor to be 
here before the committee, and I want to just say thank you for 
those kind words. Obviously, big shoes to fill with the prior 
Ambassador and obviously to fulfill your expectations as well.
    I want to thank President Trump for giving me the 
opportunity to represent the interests of the United States of 
America in these two wonderful countries.
    In addition, I want to express my gratitude to Secretary of 
State Rex Tillerson for supporting this appointment, and I very 
much look forward to working with him and his team to achieve 
our foreign policy goals in the months and years to come.
    Finally, I am thankful for the opportunity to appear before 
this honorable committee. As a former member of this body, I 
want to say thank you to my Republican colleagues who have 
previously voiced their support, and I also want to thank 
Senator Shaheen, Senator Markey, Senator Warren, and Senator 
Hassan for their early indication of support. It means a 
tremendous amount to me and my family.
    Before I begin, I would like to express the thanks of me 
and my family for the patience, mentoring, and guidance that 
Senator Collins provided me when I was here. As you know of her 
work ethic, I understand I may be off over the last couple of 
days, but 6,357 consecutive votes, which is the record in the 
United States Senate, and it is something that I know she is 
proud of and I am proud of as a citizen of this country to know 
that she has so much dedication to this job. And it is going to 
be an exceedingly difficult record to break I venture to guess.
    I joined the military 35 years ago when I was 19 years old, 
and during that time in the military starting as an enlisted 
man and working my way up the ranks as an infantry officer, a 
quartermaster officer, JAG officer. Retired recently in the 
rank of colonel, as was referenced by the Senator. The last 4 
years, while being a Senator, I also worked in the Pentagon as 
Deputy to the Chief Counsel for one of the Joint Chiefs. And it 
was one of the most enjoyable, uplifting experiences of my 
military career to be there in the hub of the action to 
basically be there and work hand in hand with one of the Joint 
Chiefs and his team.
    My responsibility, one of the things I am most proud of, 
during that time period is that me and my team were able to 
rewrite the sexual assault regulations in the National Guard, 
which are in fact in place. Teams are investigating and they 
are doing incredible work. And I know Senator Shaheen is very 
concerned about that, as others should be. And I can tell you 
firsthand that it is working very, very well.
    An attorney in private practice since 1985, I know that 
those skills that have been given me in that practice have 
allowed me to hone in on the ability to solve problems. And I 
tried to use that as a United States Senator and also will 
hopefully use it, if confirmed, in my role as the new 
Ambassador of the United States for those two great countries.
    As was referenced earlier, I have over 30 years of public 
service, starting as an assessor, selectman, State rep, State 
senator, the United States Senate. I served on the Committee on 
Armed Services, ranking member of Airland; Committee on 
Homeland Security and Governmental Affairs where I was the 
ranking member on Federal Financial Management, Government 
Information, and International Security; Veterans Affairs, as 
well as Small Business and Entrepreneurship; four great 
committees where I enjoyed working with many of you on solving 
many of our country's problems.
    Some of the highlights and things that I am most proud of 
is working with Senator Gillibrand on the Stock Act to prohibit 
members of the executive branch and Congress from using insider 
information to benefit themselves, working with Senator Carper 
on good government initiatives. As you all know, that is his 
thing, and we just went after every wasteful dollar to try to 
make it better for the American taxpayer. And then, obviously, 
with Senator McCaskill working on the Arlington Cemetery bill 
to make sure our veterans were buried with dignity and honor.
    I could go on and on. I was very proud of being the lead 
Republican sponsor on the reauthorization of the Violence 
Against Women Act and also working to deal with our Hire Hero 
Veterans bill to give our veterans a chance to be re-employed.
    For someone like me whose mom and dad were married and 
divorced four times each and who lived in 17 houses by the time 
I was 18, as Senator Markey is aware of being from 
Massachusetts and being my former Congressman and somebody I 
always have looked up to--a lot of violence in the family. 
There were a lot of tough choices. I had to grow up pretty 
quickly. And to think that, you know, Mom was on welfare for a 
period of time. And I remember her working two or three jobs to 
keep a roof over our heads and keep my sister and me safe.
    And it is those life experiences--if you said, boy, you are 
going to be a United States Senator some day, it was very 
unlikely. But I was blessed and I am still blessed to have an 
opportunity to serve this great country. Being a United States 
Senator was one of the greatest honors of my life.
    And my wife and family are looking forward to serving not 
only the President and his team but you as Members of the 
Senate. You know how I am and you know that if there is an 
issue, you just need to pick up the phone and call if you have 
any specific concerns about what is happening in that area. And 
I will be, quite frankly, looking back for your guidance and 
help in those areas as well.
    Throughout my life, no matter what job I have had, no 
matter what experiences I have had, there is one experience 
that trumps all others and that is being married to my partner 
and friend Gail for over 30 years and father to my two great 
children. Why do you always get emotional when you talk about 
your family? I am sorry. Ayla is here. She came in from 
Nashville. She is a successful music singer in Nashville. And 
she is here with her friend Rob. I appreciate them coming. 
Arianna is here somewhere. Arianna is in her fourth year at 
Cornell Vet School. She took time off from her surgical 
rotations to come down. And her husband Jimmy is here. He works 
for the Justice Department for 4 years, and he is going to be 
in the new class of the FBI academy. So we are very proud of 
each and every one of our family members.
    Mr. Chairman, when the President asked me to serve in this 
post in New Zealand and Samoa, I want you to know that it was 
my first choice. It was my choice. I wanted to go to an area 
that, quite frankly, plays an integral and key role in the 
Pacific region, a real leader, an independent, thoughtful 
leader in New Zealand when it comes to addressing that region's 
very serious needs and concerns, especially with regard to 
China and its expansionism, changing the law of the sea and the 
law of the air, and building islands and militarizing them that 
really just changed international law as we have all known 
them.
    And in addition to that, North Korea, you know, the 
belligerence and the constant testing of missiles. New Zealand 
plays a very key role as a member of the Five Eyes intelligence 
network to not only share information with our other partners 
but also in the war on terror, leading up to not only side by 
side helping us in the war against terror but also dealing in 
humanitarian efforts to make other people's lives better and 
more fulfilling.
    New Zealand has always been an unwavering friend and 
partner to the United States, as evidenced by the fact that 
they have men and women who have served and have lost life and 
limb in the battle against terror. Right now, they are our 
tenth partner when it comes to dealing with ISIS and that 
battle that really needs to be taken on on a worldwide basis.
    Their efforts to help reconstruct and train in Iraq the 
police and military forces is amazing, and they need to be 
commended. And I want to thank the citizens of New Zealand and 
the men and women who have served in that effort.
    I have had the opportunity to visit China, Taiwan, and 
Japan. And visiting those places, as well as my cumulative 
experience not only in this body but in other bodies, has given 
me a solid understanding of the region. And we talked about the 
expansionism of China, the belligerence of North Korea and what 
they are doing. These are important areas in which we need to 
really stay focused and work with our friends in that region. 
And certainly New Zealand is one of those friends.
    And just as there are challenges in the Pacific region, 
there are amazing opportunities. I believe notwithstanding what 
is happening with TPP, that there are amazing opportunities to 
increase trade, to increase security operations, work in 
training exercises with our military, work on cybersecurity, 
Senator, which I know you are very concerned about in that 
region as evidenced by what happened recently. So I look at 
what is happening right now in that part of the world as one of 
the most active, vibrant, necessary areas where we need to play 
a key role. So I am honored to have that opportunity, if 
confirmed, to participate in that process.
    Are there opportunities for bilateral trade with New 
Zealand? That is up to the U.S. Trade Representative. If 
confirmed, I look forward to playing a role to trying to bring 
the countries together to maximize any and all trading 
opportunities that we have with New Zealand and Samoa.
    I feel honored to be nominated by President Trump to 
represent the United States as Ambassador to two such 
culturally and economically diverse countries. And if 
confirmed, within the first month and a half to 2 months of 
service, I plan to, obviously, go to the embassy in Samoa to 
make sure that we can establish and continue to nurture those 
amazing relations because if you remember from our 
conversations, we actually have a maritime border, American 
Samoa, with the Independent State of Samoa. And there are some 
very real drug trafficking, illegal fishing, safety and 
security, natural disaster opportunities that we can really do 
well to expand upon. And we have a large Samoan population in 
the United States, and there is a symbiotic relationship there. 
And they need to be treated with dignity and respect as well. 
So I look forward to that opportunity.
    Mr. Chairman, in closing, I would like to say to you and 
the committee that I have had a blessed life, notwithstanding 
those challenges, Senator, that you referenced. And being 
nominated to this position has been truly a humbling process. I 
have shard the training and other things that we have gone 
through as a family to get to this point in time. And I pledge 
to you all and to the President and the American people that I 
will work tirelessly and professionally to faithfully represent 
American interests in this ambassadorial position and in 
whatever capacity I am called to serve.
    I appreciate the opportunity to appear, and I am certainly 
eager to take any and all questions that the committee may 
have.
    [Mr. Brown's prepared statement follows:]


                  Prepared Statement of Scott P. Brown

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the Senate Foreign Relations Committee, I am honored to appear 
before you today as President Trump's nominee to serve as the United 
States Ambassador to New Zealand and the Independent State of Samoa. I 
want to thank President Trump for his trust and for giving me the 
opportunity to represent the interests of the United States of America 
in these two wonderful countries.
    In addition, I want to express my gratitude to Secretary of State 
Rex Tillerson for supporting this appointment, and I very much look 
forward to working with him and his team to achieve our foreign policy 
goals in the months and years to come.
    Finally, I am thankful for the opportunity to appear before this 
honorable committee. As a former member of this body, I want to say 
thank you to Senator Warren, Senator Markey, Senator Shaheen and 
Senator Hassan, among others, for their early indication of support for 
my candidacy.
    Before I begin, I would like to express the thanks of me and my 
family for the patience, mentoring, guidance and friendship that 
Senator Collins has shown me over the years. Not only is she my sister 
Robin's U.S. Senator in Maine, but she has been someone that I have had 
a great amount of love and respect for over the years. I want to thank 
her for her dedication to public service and commend her for her 6357th 
consecutive vote in the US Senate. It is a record that will not only 
increase, but will be exceedingly difficult to break. Thank you Senator 
Collins.
    For well over 30 years, I have served my town, state and country in 
many different appointed and elected capacities. I served in the 
military for almost 35 years, joining the Army National Guard at the 
age of 19 after the big blizzard of 1978. After that tragic storm, I 
saw how our Massachusetts National Guardsmen saved the lives of our 
citizens, inspiring me to emulate their call to service. Soon 
thereafter, I raised my hand and took the oath to serve, and joined as 
an enlisted man. During my time in the military, I was branch qualified 
as an Infantry Officer, Quartermaster Officer, and a Judge Advocate 
General. Two years ago I retired at
    the rank of colonel, with my last four years of service being at 
the Pentagon as the Deputy to the Chief Legal Counsel for the Joint 
Chief of the National Guard Bureau. During that time at the Pentagon, 
my team and I wrote the sexual assault regulations and set up the 
investigation teams that are being used today in the National Guard 
with great effectiveness and results.
    In addition, I have been an attorney in private practice since 
1985, and I am confident that, if confirmed, I can bring the 
interpersonal skills and problem solving ability that I have honed in 
that role to my new role as Ambassador.
    In public service, I was honored to serve as a town Assessor, 
Selectman, Massachusetts State Representative and State Senator. From 
2010-2013, I served with most of you as a United States Senator from 
the Commonwealth of Massachusetts. During my time in the U.S. Senate, I 
served on the Committee on Armed Services, as the Ranking Member on 
Airland, on the Committee on Homeland Security and Governmental 
Affairs, and as the Ranking Member on Federal Financial Management, 
Government Information and International Security, the Committee on 
Veterans' Affairs and the Committee on Small Business and 
Entrepreneurship.
    I was proud to have been recognized as one of the most bipartisan 
Senators during my years here. Among the accomplishments I am proud of, 
I worked with Senator Gillibrand to pass the Stock Act--which stops 
insider trading for members of Congress--Senator Carper on good 
government and fraud, waste and abuse issues, Senator McCaskill to pass 
the Arlington Cemetery Bill, and many other Senators on the Hire A Hero 
Veteran's Bill, the elimination of the 3 percent withholding, no 
contracting with the enemy, and re-authorizing the Violence Against 
Women Act (VAWA) and more.
    For someone like me, whose mom and dad were married four times 
each, living in 17 homes by the time I was 18, being an abuse survivor 
and my family being periodic welfare recipients, I remember my mom 
having to work two to three jobs to keep a roof over our heads to keep 
my sister and me safe. For me, becoming a U.S. Senator was not only 
unlikely, but without a doubt was one of the greatest honors of my 
life. Being asked to serve again as an ambassador to two great 
countries is another great honor.
    However, no matter what jobs I have had throughout my life, or 
political or civilian capacities for which I served, there is one 
experience that trumps all other accomplishments. That is being married 
to my partner and wife of 30 years, Gail and being the father to our 
two children Ayla, a country music star living in Nashville, and 
Arianna, a third year Veterinary Student at Cornell University. With 
the Chairman's permission, I would like to introduce those members of 
my immediate family who are with me: Gail, Ayla, Arianna, Jimmy, mom.
    Mr. Chairman, when the President asked me where I would like to 
serve, the posting in New Zealand and Samoa was my first choice.
    I am honored to be considered for the posts in New Zealand and 
Samoa and excited for the opportunity to serve in Asia-Pacific because 
of the region's incredible importance to the world's security, economic 
prosperity, and innovation opportunities. There is great potential for 
us to improve and strengthen our ties in all of those areas.
    If I am confirmed as Ambassador to New Zealand and Samoa, I will do 
all I can to grow our ties with New Zealand and Samoa and ensure 
stability, security, and prosperity for our three countries. With the 
help of our diplomatic and national security professionals at the State 
Department and in all other parts of our government, I will advance 
American interests and support these two longstanding partners.
    New Zealand has historically been an unwavering friend of the 
United States. That long and remarkable history has had its challenges, 
but hard work and strong communication efforts have made our ties even 
stronger. The U.S.-New Zealand relationship has also been strengthened 
due to New Zealand's commitment to our shared war against terror as 
well as reconstruction and stability efforts in the Middle East. I 
would like to publically thank the citizens of New Zealand and 
especially the men and women of its armed forces. If confirmed as 
Ambassador, I will help to deepen our security relationship.
    I have had the opportunity to visit China, Taiwan, and Japan. 
Visiting those places, as well as my cumulative experience in 
government and military service, has given me a firsthand understanding 
of the region. Chinese military and economic expansion, as well as the 
North Korean nuclear threat, pose a challenge to American interests in 
the Asia-Pacific region and the world. There are many important areas 
in which we need to work with our partners in New Zealand, to properly 
deter potential conflicts in this region.
    Just as there are challenges in the Pacific region, there are also 
opportunities. The United States is one of New Zealand's top trading 
partners. If confirmed, I hope to dramatically assist in the promotion 
of even greater economic, scientific, and cultural exchanges between 
the United States and New Zealand, including strengthening Pacific 
cooperation. With regard to investments, I will focus on both New 
Zealand's investment in the United States, and American investment in 
New Zealand.
    I am also committed to assisting in increasing bilateral trade and 
commerce opportunities, assisting with the illegal fishing concerns, 
and recognizing and helping to solve environmental issues. In addition, 
I look forward to working on cyber security issues, and ensuring strong 
intellectual property protection and enforcement as we address our 
mutual priority intellectual property issues. Above all, my greatest 
responsibility will be to assist and protect the interests of U.S. 
citizens who are either living in or visiting New Zealand and Samoa.
    I feel truly honored to be nominated by President Trump to 
represent the United States as Ambassador to two such culturally and 
economically diverse countries. If confirmed, within the first two 
months of service, I plan to visit the independent State of Samoa, 
which shares a maritime border with the United States. The Independent 
State of Samoa and parts of American Samoa have experienced serious 
environmental disasters, including a devastating tsunami that destroyed 
many parts of the islands. Being an island state presents many 
different challenges and opportunities. If confirmed, I plan to learn 
and try to understand how the United States can assist Samoa and 
strengthen our relationship. That relationship was enhanced in 2012 
when both countries signed a Mutual Law Enforcement Agreement, which 
allows Samoan maritime officials to utilize U.S. Coast Guard and Navy 
Vessels in policing Samoan waters. We will continue to work in 
cooperation on maritime issues, including putting a stop to the 
trafficking of drugs and human beings and halting illegal fishing. For 
over 50 years, the Peace Corps has maintained a vibrant and necessary 
assistance program in the country and I look forward to learning more 
about how we can assist even more.
    As you are aware, American Samoa has a strong cultural and 
geographic bond with not only the Independent State of Samoa, but also 
has a strong bond with Samoan communities in the United States. It will 
be important to cooperate closely with the American Samoan delegation 
to the U.S. Congress to see how we can improve trade and promote 
tourism and democracy.
    Mr. Chairman, in closing, I would like to say to you and the 
committee, that I have had a blessed life. Being nominated to this 
position has been a humbling process. I pledge to you, our President 
and the American people that I will work tirelessly and professionally 
to faithfully represent American interests in this Ambassadorial 
position, and in whatever capacity I am called to do so.
    I appreciate the opportunity to appear before you today, and I 
would be pleased to answer any questions that you may have.


    Senator Gardner. Thank you very much for that testimony.
    And we will begin with questions, and I will just start 
with this. You talked about the role that New Zealand plays in 
the Pacific. Obviously, New Zealand plays a very important role 
in terms of political stability and economic stability and 
security as well.
    What role as Ambassador would you play to help further New 
Zealand's role in the region?
    Mr. Brown. Thank you for the question, Senator.
    If confirmed, I would obviously seek immediately the 
appropriate briefings dealing with commerce, with security, and 
any opportunities that this President, this administration, and 
you as Senators want to put forth. My understanding, with all 
the research that I have done and speaking and listening and 
learning during training, is that there are some really 
wonderful opportunities. We have about $11.5 billion to $12 
billion of trade going back and forth, a slight trade deficit, 
but we have a surplus when it comes to services. The areas in 
particular where we provide planes, cars, replacement parts, 
high tech, biotech opportunities--also, there is a relationship 
now with NASA and trying to expand job opportunities in that 
field. We also have, on the other hand, beef, lamb, wine. So 
there is a pretty active and vibrant trading between the two 
countries right now.
    And I am hopeful that if confirmed, I will have an 
opportunity to work with the Commerce Department and the U.S. 
Trade Representative to find other niches where not only U.S. 
citizens can invest in New Zealand to create jobs but also, 
more importantly, the other way around, have New Zealand, which 
they are already the number two investment in the United States 
for that country, try to increase those opportunities.
    Senator Gardner. Thank you, Senator Brown.
    I want to make sure that we get to the other Senators who 
have attended the hearing this morning. So I will turn right 
now to Senator Markey and then come back for questions.
    Senator Markey. Thank you, Mr. Chairman, very much.
    In my office, we spoke about the fishing industry and the 
involuntary servitude issues that New Zealand has. Could you 
expand upon that, explain to the committee what your views are 
in terms of what the American position should be in dealing 
with those issues?
    Mr. Brown. Well, Senator, first of all, if confirmed, I 
look forward to really doing a deep dive into those very 
important issues. From the research and other information I 
have gathered, Senator Shaheen and you, Senator Markey, and 
former Congressman Barney Frank, we worked tirelessly on 
fishing issues. It is something that is very personal to me and 
hopefully, if confirmed, I will be able to bring that expertise 
or maybe suggestions or new ideas to the people of New Zealand 
and Samoa.
    That being said, with regard to, if I may expand upon it a 
little bit, human trafficking, drug trafficking, and 
involuntary servitude, New Zealand is a tier 1 country. They 
have done amazing work in addressing those very real concerns 
because there is a flow from China, Indonesia, and other parts 
of that region in or through New Zealand and/or through Samoa. 
The Government of New Zealand has recognized it. They have 
passed legislation not only for those issues, but in addition, 
for the victims who have been affected by that.
    With regard to your specific question, something that 
really kind of stuck out when I was doing my research and doing 
that deep dive to the limit that I can was the fact that, 
obviously, fishing is huge. It is an island nation. And there 
are folks who will sign onto a fishing vessel and, you know, 
they will say, hey, come on board. You will be the first mate 
and you will get paid X. Then they get on board and it is not 
quite what it seems to be. And New Zealand has recognized that, 
and they have passed legislation to address that type of thing 
where they now have mechanisms in place to not only do spot 
boarding, spot checking, they keep excellent records of boats 
and vessels that have a history of that. And they have passed 
legislation, maritime legislation, in dealing with that type of 
arrangement.
    Quite frankly, I had no idea it was actually something that 
happened. It is not only that. It is in other industries 
potentially, tourism, agriculture, and the like. And I look 
forward, if confirmed, to really learning more about it and 
trying to offer any suggestions based on our experiences.
    Senator Markey. There was a lull in the relationship 
between the United States and New Zealand in defense 
cooperation in the 1980s, and that relationship has been 
rebuilt. How does your experience in the National Guard inform 
this relationship in terms of what you think might be possible 
in the years ahead?
    Mr. Brown. Thank you, Senator.
    As the chairman referenced earlier, we have had a historic 
and wonderful partnership with New Zealand and Australia 
through the ANZUS Treaty. There was a point when New Zealand 
changed its position on nuclear proliferation, the use of 
nuclear weapons and the like, and the United States did not 
agree with that. Obviously, if confirmed, I am going to do a 
deeper diver and get the appropriate briefings.
    But that seems to have warmed somewhat in that to celebrate 
the country's 75th anniversary, the New Zealand Royal Navy 
asked if we would send a representative. And the USS Sampson 
was able to go there. There has always been a--recently since 
that change, the Government of New Zealand prohibits any type 
of nuclear militarized or powered vessels from coming into 
their ports. That is their choice. We went in and were asked to 
come in. We were approved at the highest levels by the New 
Zealand Government. And it was really a wonderful first step in 
rehabilitating that relationship.
    Sadly or ironically, while the Sampson was there, the 
country of New Zealand had a 7.8 on the Richter scale 
earthquake that really did some very serious damage to that 
country. And the Sampson was asked to stay for relief, 
humanitarian and other disaster relief. And I am understanding 
only from what I have read and researched--and obviously, if 
confirmed, I want to do the deeper dive--that the people of New 
Zealand were very, appreciative of that humanitarian effort. 
And it showed I think the United States and New Zealand--we are 
really brothers when it comes to these issues. We are people of 
the world. I believe we are one of the most philanthropic 
countries in the world and the most helpful people in the 
world, and I believe New Zealanders are very similar. And it 
just created a great opportunity.
    So, Senator, to answer your question about my military 
experience, I look forward to getting the appropriate 
briefings, if confirmed, and meeting with their minister of 
defense and see if there are opportunities to do more in terms 
of cooperation in that region.
    Senator Markey. And, Mr. Chairman, I was able to talk for 
about 45 minutes with Senator Brown in my office, and I felt 
that he had a real grasp of all the key issues that confront 
our relationship with New Zealand. I would just like to put 
that on the record as well.
    Mr. Brown. Thank you, Senator.
    Senator Gardner. Thank you, Senator Markey.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman.
    I appreciate, Senator Brown, you talking about the USS 
Sampson experience and what a change that they not only 
permitted us to be there but then looked to us for help and we 
responded in kind. And that is consistent with the broader 
relationship. So I think your being there will help to cement 
that relationship in so many ways, but one is the military 
cooperation and the ability to be of assistance in something 
like a natural disaster that you talked to me about in my 
office.
    I want to ask you something that you may not be able to 
talk about to the extent that you have classified information 
that is not appropriate. But it is about the special 
relationship we have with New Zealand as a partner in the Five 
Eyes intelligence group. What do you think the value of that is 
to the United States, to the extent you can address it? And how 
does that work so folks who are not knowledgeable about the 
importance of that can better understand it?
    Mr. Brown. Well, Senator, thank you for your question.
    And I have not been briefed yet. If confirmed, I will get 
those appropriate briefings before I head out to post. But from 
what I understand, there has been a very positive relationship, 
obviously, between the United States, Canada, Great Britain, 
Australia, and New Zealand to gather and share information for 
security purposes to understand what is happening throughout 
the world.
    I know that we value very, very much New Zealand's 
contributions and, quite frankly, guidance in a whole host of 
issues in that region because that is their turf. And the fact 
that they are there--and they are in an interesting position in 
which they do a tremendous amount of trade. China is their 
number one trading partner.
    And the thing that has really kind of stuck out with me is 
the fact that even though there is that business relationship, 
that trade relationship, they are not afraid to stand up and 
say, excuse me, China, by the way, the fact that you are 
building islands and militarizing them and changing the law of 
the air and the law of sea and international law as has been in 
place forever, we do not like that. And I think that says a lot 
about not only the leadership in New Zealand but the fact that 
they are not afraid to stand up and be counted.
    So I look forward, Senator, once confirmed, to learn more 
about that and be our country's representative in assisting in 
that area.
    Senator Portman. Yes. They are fiercely independent, kind 
of like some New Englanders I know.
    Senator Portman. You know, it is interesting you say that, 
Senator. They are fiercely independent. And you cannot tell 
them what you want. You have to ask them. And one of the things 
that my family and I--my wife and I look forward to in 
particular is getting a fair go by the people of New Zealand. 
What that means is a fair shot. Going down there, we are a 
clean slate. We want to be there. We are eager to go. We want 
to serve. We want to listen and learn and then bring that back 
to our citizens and to you as Senators.
    Senator Portman. You mentioned China. New Zealand and China 
signed a free trade agreement back in 2008. And since that 
time, the trade between the two has grown significantly. Now 
they are negotiating an upgrade to their FTA, their free trade 
agreement, and exploring how New Zealand can fit into China's 
One Belt, One Road initiative, sort of recreating the Silk 
Road.
    In your view, might this developing trade relationship with 
China be a problem for us? And what should the United States do 
in response to it? And how can we perhaps deepen our economic 
ties with New Zealand at this time?
    Mr. Brown. Well, as you referenced, Senator, they are 
renegotiating the free trade agreement, and if confirmed, I 
will learn more about that, obviously. But from all my 
research, we are in fact the number three trading partner. I 
would like to be number two and potentially number one. Can 
that happen? I am not sure, but I know that if there is an 
opportunity for a business in New Zealand to come into the 
United States and I am notified of it, I am going to notify the 
Commerce Department and the U.S. Trade Representative and make 
sure that we can make that happen. If there are opportunities 
and niches that we as businesses in the United States can 
actually do business in New Zealand like we do with planes and 
cars and now with NASA working on the weather balloon 
experimentation, I want to seek those opportunities out. I 
think that is part of a role of an ambassador is to work with 
the business leaders and civilian leadership to try to enhance 
those great relationships. I think there is a great 
opportunity, subject obviously to many factors, to work in that 
regard and improve that relationship.
    Senator Portman. Just one final question and give you a 
chance to talk about Samoa for a second because I know this is 
an ambassadorship actually to New Zealand and Samoa, as 
explained to me.
    Mr. Brown. Correct.
    Senator Portman. I did not know that previously.
    And then, of course, the special relationship with 
Australia in that region. As I said, you are going to be the 
first Ambassador confirmed and maybe the first one for a while 
in that region.
    But in terms of Samoa, what are your objectives there? What 
would be your hopes to be able to achieve with regard to our 
relationship with Samoa?
    Mr. Brown. As I said in my original testimony, Samoa--we 
share a border. They are 3,000 miles away from New Zealand by 
the way. So it is not like I am just going to hop on a plane 
and I will be there in an hour. It is going to be something 
that we are going to have to plan for a good week away.
    That being said, it is going to be very exciting to work 
with an island country that we actually share a border with and 
the fact that they have actually been subjected to a tsunami 
and had joint needs and we were able to come in and help with 
those needs.
    The Independent State of Samoa is just that. It is an 
independent state. It has a very strong and stable government, 
wonderful people who are looking forward to living and growing 
and taking care of their families like everybody else in the 
world. And they deserve the representation that they are going 
to get, just like New Zealand does, regardless of its size. So 
I anticipate going there and working with the consul general 
there. We have an embassy but there is one American 
representative, and we have a larger staff, obviously--if 
confirmed, going and listening and learning to what his needs 
are and then moving forward in trying to develop those 
relationships. I am excited to have two countries.
    Senator Portman. Well, we are excited that you are 
interested in serving, and we look forward to getting the 
confirmation process going here in this committee and then 
helping you on the floor and then seeing you serve our great 
country in that important region of the world.
    Thank you, Mr. Chairman.
    Mr. Brown. Thank you, Senator.
    Senator Gardner. Thank you, Senator Portman.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And congratulations, Senator Brown. I certainly very much 
appreciate your willingness to continue to serve the country. 
And welcome to your family, to Gail. I know that when we you 
serve, Gail serves too. So we very much appreciate that joint 
effort.
    And thank you for taking some time to sit down with me and 
talk about how you view this position. I very much appreciated 
your insights into New Zealand. And as we said, you are going 
to a beautiful country that has been a very good friend of the 
United States for a very long time.
    And I want to follow up a little bit on Senator Portman's 
question about China and the trade relationship because, as you 
know, New Zealand was a founding member of the Trans-Pacific 
Strategic Economic Partnership, which was really the foundation 
for TPP. And without that, as you pointed out, there is a 
question about how New Zealand will continue to go forward with 
China.
    So I know you have talked about the potential trade 
opportunities between the United States and New Zealand. So can 
you talk a little bit about where you think some of those 
opportunities lie?
    Mr. Brown. Thank you for your question, Senator.
    As we discussed and as you just referenced, we have pulled 
out, it appears, from TPP. New Zealand has moved forward in 
that regard. I learned today that they are moving forward with 
Japan as well.
    So subject obviously to confirmation and getting the 
details of that particular relationship and what the 
opportunities are, through the research that I have actually 
been doing, I think there is a great opportunity actually to 
continue to work on the high tech, biotech areas that we really 
have expertise in. In addition, there is a wonderful 
opportunity I think to help them with their fishing and some of 
the illegal fishing that is happening there, to give them some 
guidance on what we have done in our region to protect fishing 
stocks and protect that livelihood. There are some potential 
opportunities dealing with climate. It is something that is 
very real and serious there. And I look forward to going and 
listening and learning and understanding what their challenges 
are, then conveying it back to you and the administration to 
see where we can find common ground.
    Without having been given the appropriate economic 
briefings yet, I can only guess and I think that would be 
inappropriate. But if there are opportunities, Senator, if 
there are opportunities in New Hampshire, for example, please 
note that you have my word that I will work very closely with 
you to make sure we create jobs in New Hampshire and make sure 
we can create an opportunity to grow and expand jobs in our 
State.
    Senator Shaheen. Well, thank you. I appreciate that. And I 
know Senator Markey talked about your history in Massachusetts, 
but I would point out that you are currently a resident of New 
Hampshire. So I especially appreciate that.
    And you mentioned climate change. And I know that you have 
supported alternative energies, solar and wind and nuclear 
power, as a way to reduce our U.S. dependence on foreign oil. 
Can you talk about other potential areas of cooperation with 
New Zealand as we look at our alternative energy future and 
what we need to do?
    Mr. Brown. Thank you, Senator.
    Yes. I am an all-of-the-above approach: wind, solar, 
nuclear, hydro, geothermal, siting, permitting. I think it is 
really an entire and total package. And if confirmed, I look 
forward to learning more about what New Zealand's needs are, 
but I know they have done a tremendous amount to try to reduce 
their use of fossil fuels and dealing with the issues that 
dramatically affect that region by using wind and solar.
    If there are opportunities, once again, in our country to 
bring those goods to New Zealand, I am all ears, and I will 
work with you and work with anybody in this building, to 
include the Commerce Department and the Trade Representative, 
to say, hey, by the way, we have a better way of doing it. Can 
we bring the people over to talk to you? And that is, I think, 
one of the most important jobs that an ambassador has is that 
facilitator to try to create economic opportunity.
    Senator Shaheen. Absolutely.
    Mr. Brown. So, Senator, I am all ears. If you have 
suggestions, when I find out, I am happy to personally brief 
you and see if there are any joint things that we can work on.
    Senator Shaheen. Thank you.
    And finally, you referenced this in your opening statement 
and some of your responses, but that is the important role that 
the New Zealand has in the South China Sea or in terms of what 
is happening in the South China Sea and what China is doing. 
How important is our relationship with New Zealand as we look 
at trying to continue to deter some of the expansionist 
tendencies of China and the concern that our other allies in 
the Pacific region have about what China is doing?
    Mr. Brown. I think the concern about China is real as I 
have said publicly when I was a U.S. Senator. We took action in 
dealing with the manipulation of China's currency. You were 
there. You voted on it. It passed 100 to nothing, if my memory 
serves me.
    Once again, if confirmed, I am going to immediately get the 
appropriate briefings as to the extent of what is really 
happening, but based on what I have seen and read, there is no 
real reason to be building islands and militarizing and 
changing the law of the air and law of the sea and changing 
potential trade and travel routes in that part of the world 
just because.
    And the thing that I love about what New Zealand has done, 
even though they have a very strong trading relationship with 
them, they were the first ones--one of the first countries to 
actually stand up and be counted and be noticed and point out 
their objections to those actions.
    In addition, when North Korea, as it is still lobbing 
missiles around the region--they were one of the first ones to 
say this is completely unacceptable. And I love the independent 
spirit of the New Zealand people based on what I have learned 
and heard, and I have been asking a thousand questions every 
day.
    So rest assured, they are a critical friend and partner 
when it comes to helping us understand what is going on in that 
region. And without Australia and New Zealand and our other 
partners in that part of the world, I think we would be at a 
tactical disadvantage. So I am excited to try to enhance and 
improve that relationship.
    Senator Shaheen. Well, thank you very much. And again, 
thank you for your willingness to serve. I look forward to 
working with you when you are confirmed.
    Mr. Brown. Same here, Senator. Thank you.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Gardner. Thank you, Senator Shaheen.
    And, Senator Brown, I want to reiterate some of the 
comments that have been made as we look at the interests of the 
United States as it rests with the rest of the region, how we 
make sure that we are working with New Zealand in our interests 
and helping further their interests because they do overlap 
many times and making sure that we can coordinate that work 
together. Many of us on the committee are pursuing efforts in 
Asia that would help provide reassurance to the entire region 
and then, of course, New Zealand, Australia--the work that they 
can do in China and trade opportunities with our Asia partners 
to make sure that we are furthering interest in trade, 
furthering interest in security, furthering interest in 
economic opportunities. I look forward to the leadership that 
you are going to provide when this committee gives you that 
fair go for your nomination.
    And so I want to thank you for attending today's hearing, 
to everyone here, to Senator Brown for providing us with your 
testimony and responses.
    For the information of the committee members, the record 
will remain open until the close of business on Friday, 
including for members to submit questions for the record.
    I want to thank your family and to certainly kindly ask you 
to make sure that he gets his homework done on those questions 
for the record as soon as possible. Those responses will be 
made part of the record.
    And with that, thank you all. The committee is adjourned.
    [Whereupon, at 2:48 p.m., the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
         Submitted to Scott Brown by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy is something that I 
have taken seriously throughout my career and I am proud of my record 
on these critical issues. I am very proud to say that I helped rewrite 
the sexual assault regulations for the National Guard, while performing 
my National Guard service at the Pentagon. These regulations were 
implemented and are being used today with great success.
    Additionally, as a Member of the U.S. Senate, I was involved in 
supporting legislation and working with advocates to prohibit child and 
human trafficking. I am grateful to have been part of that legislation, 
and if confirmed, will continue to work to combat this battle as 
Ambassador.
    Finally, as someone who has endured hardships myself, I understand 
the need to make every effort to combat sexual abuse and protect the 
rights of victims. I have worked on these issues for a very long time 
and have been fortunate to be recognized and receive awards for my 
efforts. Should I be confirmed as Ambassador to New Zealand and Samoa, 
I would continue to prioritize this work.

    Question 2. What are the most pressing human rights issues in New 
Zealand and Samoa? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in New 
Zealand and Samoa? What do you hope to accomplish through these 
actions?

    Answer. As I said in my hearing, New Zealand is a Tier 1 country 
with respect to trafficking in persons, and they have done great work 
so far to address this issue through legislation and stepped up law 
enforcement. In just this past year New Zealand has taken a number of 
additional measures to increase awareness, crack down on traffickers, 
and engage civil society. Samoa, as an island nation, faces similar 
challenges with respect to trafficking in persons. If confirmed, I look 
forward to working with New Zealand and Samoan officials to continue 
addressing these issues and share best practices between our two 
governments.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response?

    Answer. New Zealand takes the issue of trafficking in persons 
seriously and I look forward to partnering with their authorities to 
find better ways to address it, as well as other human rights issues. 
Thanks to our close bilateral relationship and New Zealand's commitment 
to human rights, they are natural partners for addressing human rights 
issues not only in New Zealand, but in the wider Pacific region and 
beyond. I look forward to working with them to advance these issues.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in New Zealand and Samoa?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and non-governmental organizations in New Zealand and Samoa.

    Question 5. Will you engage with New Zealand and Samoa on matters 
of human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes. If confirmed, I will work with New Zealand and Samoa 
authorities to engage on matters of human rights, civil rights, and 
governance. I will also seek to exchange best practices between our 
governments.

    Question 6. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the executive branch?

    Answer. Yes.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do at the Mission to 
promote, mentor and support your staff that come from diverse 
backgrounds and underrepresented groups in the Foreign and Civil 
Service? What steps will you take to ensure each of the supervisors at 
the Embassy are fostering an environment that's diverse and inclusive?

    Answer. If confirmed, I will work with all members of the embassy 
community to promote and foster an inclusive and diverse embassy team. 
Encouraging this type of community will foster creativity and 
productivity for our whole workforce.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Scott Brown by Senator Robert Menendez

    Question 1. The environment in New Zealand continues to be 
challenging for U.S. innovative biopharmaceutical companies looking to 
invest and compete successfully. Specifically, significant challenges 
exist regarding intellectual property protections and transparency in 
decisions made by the Government. How will you work with New Zealand to 
improve the business environment to ensure that innovative industries, 
such as the biopharmaceutical industry, have the protections and 
security necessary to succeed?
    Answer. If confirmed, I am committed to increasing bilateral trade 
and commerce opportunities for all U.S. companies in New Zealand. As I 
said in my hearing, I look forward to working to ensure New Zealand has 
strong intellectual property protection and enforcement as we address 
our mutual priority intellectual property issues. The United States is 
an important trading partner for New Zealand, and I will work with USTR 
and other government agencies to ensure U.S. companies have all the 
support they need to succeed and thrive in the New Zealand market.



                               __________





                               NOMINATION

                              ----------                              


                         THURSDAY, MAY 18, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Risch, Flake, Gardner, Young, 
Barrasso, Portman, Cardin, Menendez, Shaheen, Coons, Murphy, 
and Merkley.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  The committee will come to order.
    The ranking member and I will defer on our opening comments 
out of our tremendous respect for Lamar Alexander, senior 
Senator from Tennessee, our great friend. We appreciate him 
being here. Senator Alexander, please take your time in 
welcoming our distinguished guest today and our friend. When 
you are finished, you can certainly go about doing your other 
duties. You do not have to stay.

              STATEMENT OF HON. LAMAR ALEXANDER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Senator Corker, Senator 
Cardin. It is kind of intimidating to be down here in the 
witness chair. [Laughter.]
    The Chairman.  Well, you have done it before.
    Senator Alexander. I have done it before, and I am sure 
this confirmation hearing will go better than mine did 25 years 
ago. [Laughter.]
    Senator Alexander. I am here today to strongly recommend 
and respectfully recommend to the committee that it approve the 
President's nomination of Bill Hagerty as Ambassador to Japan.
    In 2013, when Bill Hagerty was the Commissioner of Economic 
Development for Tennessee, he gave a speech entirely in 
Japanese at the American embassy in Tokyo. Now, I have looked 
it up. There have been 16 United States Ambassadors to Tokyo, a 
very distinguished group, since World War II: A five-star 
general, two former Senate Majority Leaders, a former Vice 
President of the United States, and a former Speaker of the 
House, the daughter of the former President. And so far as I 
know, none of them were able to do what Bill Hagerty did in 
2013 when he made a speech entirely in Japanese at the American 
embassy in Tokyo. That is just one reason why I think Bill 
Hagerty is one of President Trump's best appointments.
    He was born in Tennessee, graduated from Vanderbilt 
University. He was associate editor of the Law Review. He 
worked as a consultant for the Boston Consulting Group. During 
his final 3 years, he lived in Tokyo and he served as senior 
executive managing their clients around Asia. He was selected 
by President George H.W. Bush to be on his staff. There he 
worked on trade, commerce, defense and telecommunications 
issues. He was a White House fellow. He was founder and 
chairman of a company in private life that became the third 
largest medical research company. He founded his own private 
equity and investment firm.
    From 2011 to 2015, he was the Commissioner of Economic and 
Community Development for Tennessee. And in that role, working 
with Governor Haslam, secured $15 billion in capital investment 
and 90,000 jobs for our State. Two of those years, Tennessee 
was the number one State for economic development and number 
one State for job creation through foreign direct investment.
    He is a distinguished Eagle Scout. He was head of a capital 
campaign for the scouts. He served on the board of the Far East 
Council of the scouts, encouraging the growth of Boy Scouts 
throughout Asia. One way he intends to continue that mission is 
that his two sons, who are here today, will join their 
respective troops in Japan following his confirmation. And his 
wife Chrissy would want me to quickly add that there are two 
aspiring Girl Scouts in their family who will have their time 
to do that too.
    It is not only one of the best important, one of the most 
important. There is a reason why we have had such a 
distinguished list of Ambassadors since World War II, including 
our former Majority Leader Howard Baker from Tennessee. Mike 
Mansfield, another former Majority Leader who was Ambassador, 
used to say in every speech he made that the Japanese-American 
alliance is the most important two-country relationship in the 
world, bar none. Ambassador Mansfield said that so often that 
Americans in Tokyo used to refer to our embassy as the Bar None 
Ranch.
    If you will permit a little parochialism, Mr. Hagerty comes 
from a State, Tennessee, that has the most important 
relationship with Japan of any State, bar none. That began 
about 40 years ago. I remember President Carter saying to me as 
a new Governor and to the other Governors go to Japan, persuade 
them to make here what they sell here. Off we all went. During 
my first 24 months as Governor, I spent 3 weeks in Japan and 8 
weeks on Japan-American relations. I explained to Tennesseans 
that I thought I could do more good for our State in Japan than 
I could in Washington, D.C. That turned out to be true. Nissan, 
Bridgestone, Komatsu, other companies came. By the mid-1980s, 
we had about 10 percent of all the Japanese capital investment 
in the United States. This has continued. Nissan and 
Bridgestone have their largest plants--or North America's 
largest auto plants and tire plants in Tennessee. And with Mr. 
Hagerty's help, Bridgestone, as well as Nissan, has decided to 
locate its North American headquarters in our State.
    So Bill Hagerty, if approved by the committee, would go to 
Japan not only able to speak the language but having lived and 
worked there and understanding how close ties between Japan and 
the United States can create bigger paychecks for Americans, as 
well as for the Japanese.
    So my hope is that the committee will promptly approve his 
nomination and that he will soon be on his job and his children 
will be in their respective scout troop in Japan.
    Thank you very much for allowing me to come this morning.
    The Chairman.  Thank you so much for being here. That was 
an outstanding introduction. And certainly I know you know him 
well.
    I think that Lamar has done an outstanding job of laying 
out these outstanding credentials, and I agree that you are one 
of the most outstanding appointments that President Trump has 
made.
    The relationship between our two countries speaks for 
itself. And having Abe here as one of the first visitors I 
think speaks to how the Trump administration and our country 
feel about Japan. I do want to say that the Ambassador, 
Ambassador Sasae is here with us, a friend, someone that we 
work with constantly. We welcome him here to this hearing.
    To my friends here, I will speak on a little different 
level about this nominee. I have seen him in business and the 
outstanding things that he has done there. I have seen him 
represent our State and cause it to be the most important and 
most heralded State relative to job creation in our country.
    I have seen him come into an administration that had some 
really tough issues and cleanup that needed to be done on some 
economic issues. And I have seen him negotiate those in an 
appropriate and steadfast manner while at the same time 
bringing people together.
    I know his family. I know Lamar mentioned the Boy Scout 
issues. I was with Bill recently when he was at a weekend Boy 
Scout event, and it rained the entire weekend and he looked 
pretty haggard, a little different than he does today. But he 
is an outstanding family person. He and his wife Chrissy 
actually met in Japan, so they are coming back to the country 
in which they met and where he will be heralded much in the way 
Howard Baker was when he went to Japan.
    I visited Japan when Senator Baker was our Ambassador 
there, and I saw the tremendous ties between our countries. And 
the fact is that Tennessee is a place that has a very warm spot 
in Japanese hearts. It really does. And as good a job as 
Senator Baker did--and we were all so proud of his service--I 
have a feeling that Bill Hagerty is going to raise the bar. So 
I am really, really proud of this nomination and so glad that I 
believe he will be ascending to this position quickly. And I 
know he will represent the very best of our country.
    Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Hagerty, welcome.
    Your two Senators are very well respected in this 
institution, and it is usually an obligation to introduce a 
person from the State. But we could tell by the way that 
Senator Alexander and Senator Corker have spoken about you that 
it comes from their heart and the deep respect that they have 
for you, which carries you a long way in this committee and the 
United States Senate.
    So welcome. It is wonderful to have you here. And we 
welcome your family because this is a family commitment--your 
public service. So we thank your entire family for being 
willing to join your venture on behalf of our country.
    You have heard the previous Ambassadors to Japan. And it is 
a very distinguished list. Mike Mansfield, one of the giants in 
American history, as well as Howard Baker from your own State, 
leaders in the United States Senate; Speaker Tom Foley; the 
Vice President, Walter Mondale; and Caroline Kennedy. So it is 
a distinguished group. So it is a distinguished group. I could 
go on.
    The reason is, as pointed out by Senator Alexander, the 
relationship between the United States and Japan is critically 
important to the United States. In the Obama administration, we 
had the rebalance to Asia because we recognized that the Asia 
region has always been important to the United States, but it 
is emerging as one of the most important strategic developments 
during this time as to America's role globally as to how well 
we deal with the Asia region. So you are going to play a very, 
very important role in that regard.
    The United States and Japan, the first and third largest 
economies. We have common values of democracy, human rights. We 
are going to be calling upon that relationship as we try to 
expand our influence in that region on labor issues, on 
environmental issues, on good governance, on human rights. All 
those matters will very much depend upon on how well the U.S.-
Japan relations develop, as its influence in Asia and its 
global areas.
    You will have challenges. You know the challenges of North 
Korea and what recently has transpired, which has been building 
up for a long time. Your role as our Ambassador to Japan will 
play an important role as we try to deal with that challenge.
    The rise of China will very much be on your agenda.
    How Japan deals with South Korea, which has been a 
challenge over time. It has gotten better of late, but still 
not the close relationship we would like to see between two of 
our close strategic partners in that region in the world.
    Maritime security issues are very much dominant, and Japan 
is right in the middle.
    And of course, our security alliance and what we do with 
Okinawa and Guam are issues that we really need to focus on.
    So we welcome you to the committee and we look forward to a 
discussion as to how we can work together to strengthen 
America's national security interests.
    The Chairman.  Without objection, any written testimony you 
have will be entered into the record. If you would summarize 
your comments in about 5 minutes, that would be great. And then 
we look forward to questions. Again, thank you for your 
willingness to serve in this capacity and for being here today.

 STATEMENT OF WILLIAM FRANCIS HAGERTY IV, OF TENNESSEE, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                   STATES OF AMERICA TO JAPAN

    Mr. Hagerty. Thank you, Senator. It is very humbling. I 
appreciate the hospitality.
    Mr. Chairman, Ranking Member Cardin, distinguished 
committee members, it is an honor to be with you today as 
President Trump's nominee to be the U.S. Ambassador to Japan. I 
am humbled that the President has entrusted me with this 
opportunity to lead our engagement with such an important ally. 
Few nominees are fortunate to testify before their own Senator, 
and I am privileged to be here today before fellow Tennesseans 
and good friends, Chairman Corker and Senator Alexander.
    Knowing that I have not journeyed here alone, I would like 
to express my love and my gratitude to my family: my wife 
Chrissy and my children, William Hagerty, Stephen Hagerty, Tara 
Hagerty, and Christine Hagerty. In addition, I would like to 
acknowledge Chrissy's mother Terry, my mother Ruth, and our 
siblings who are watching from home today. Importantly, I would 
also like to share my gratitude to our fathers, Chrissy's 
father Bill Locke-Paddon; my father, Bill Hagerty, who are both 
with us in spirit here today in this room.
    I would also like to thank Ambassador Sasae and the many 
other friends in the audience today who joined and show their 
support.
    The Trump administration has made clear in words and 
actions the high priority it places on our alliance, 
partnership, and friendship with Japan. The President hosted 
Prime Minister Abe just 3 weeks after his inauguration. The 
Vice President visited Japan last month. Secretaries Tillerson, 
Mattis, and Ross traveled to Japan early in their tenures. This 
rapid, senior-level engagement underscores the strength and 
importance of our security alliance and overall bilateral 
relationship.
    Mission Japan is staffed by over 700 dedicated men and 
women working diligently to advance U.S. interests in Japan and 
throughout Asia. They support some of our Nation's most 
important partnerships, and I could not be more excited about 
the opportunity to lead this team, if confirmed. I also look 
forward to working with the leadership of our distinguished 
U.S. forces in Japan in managing our all-important alliance. 
Moreover, our bilateral relationship is supported by many men 
and women right here in Washington, whether it be our Japan 
desk at the State Department or the many departments and 
agencies that work with their counterparts at Mission Japan 
every day.
    This committee and other legislators and their staffs play 
an active and vital role in guiding this critical relationship, 
and I would like to underscore my deep appreciation for the 
leadership and engagement that go into making our relationship 
with Japan among the strongest any two countries might hope to 
achieve.
    I have seen firsthand the importance of this relationship 
with my own eyes. These personal connections began when I 
worked in Tokyo for 3 years in the 1980s and 1990s with the 
Boston Consulting Group. That time in Tokyo brought home to me 
our two countries' shared economic interests and security 
priorities, while affording me lasting friendships and a deep 
appreciation of Japanese culture.
    Years later, as Commissioner of the Tennessee Department of 
Economic and Community Development, I managed a number of 
offices overseas, including one in Japan, with a focus on 
attracting foreign direct investment, jobs and promoting 
exports. Our success there was unprecedented. Tennessee became 
the first State to be ranked number one in economic development 
2 years in a row in 2013 and 2014. We were also the top State 
for job creation from foreign direct investment during my 
tenure. 60 percent of that foreign direct investment was 
sourced in Japan.
    I hope to bring my experience to bear on a robust economic 
relationship with Japan. In particular, I intend to promote 
job-generating Japanese investment in the United States. I 
would also aim to support new trade opportunities and enhanced 
access for U.S. firms in the Japanese market to narrow the 
overall deficit with Japan.
    If confirmed, I would seek as well to advance the economic 
dialogue recently launched by Vice President Pence as a vehicle 
to strengthen the overall bilateral framework of our economic 
relations.
    While such trade and investment has been a professional 
focus of mine, I know that the anchor of the overall U.S.-Japan 
bilateral relationship consists of more than mutual economic 
benefits.
    Foremost in our relationship is the U.S.-Japan Alliance, 
the cornerstone of regional peace and security, as well as a 
platform for global cooperation. The deployment of our best 
military personnel and their best technology to Japan reflects 
the ironclad commitment of the United States to the alliance 
and to the peace and stability of the Asia-Pacific region. This 
commitment is more critical than ever in the face of fast-
emerging security challenges, including North Korea's nuclear 
weapons and ballistic missile programs, as well as China's 
assertive behavior in the East and South China Seas.
    Just as we value the Japanese Government's support for the 
alliance, so too we must thank the localities that host U.S. 
forces, particularly in Okinawa. As Ambassador, I will continue 
to build strong relations with host communities while ensuring 
our continued capability to fulfill security commitments.
    The U.S.-Japan partnership enjoys strong bipartisan support 
in the Congress and in the Japanese Diet. Through exchange 
programs, cultural activities, and reconciliation efforts, the 
United States and Japan have developed a close understanding 
between our two peoples as an enduring foundation for a strong 
bilateral relationship. If confirmed, I would aim to strengthen 
our people-to-people ties even further.
    In closing, the U.S. partnership and alliance with Japan is 
a central pillar in our role in Asia and beyond. Drawing on the 
strength of the entire U.S. Government, including our 
outstanding military personnel, the dedicated officers of the 
U.S. Foreign Service, and the many talented men and women from 
multiple federal agencies that serve in Japan, I would, as 
Ambassador, endeavor to deepen our partnership and alliance 
with Japan so we may respond more effectively to regional and 
global challenges.
    I am honored to be considered for this critical post, and I 
will focus all my strength on improving the lives and security 
of my fellow Americans through engagement with our strongest 
ally in Asia.
    Thank you, Mr. Chairman.
    [Mr. Hagerty's prepared statement follows:]


                Prepared Statement of William F. Hagerty

    Mr. Chairman, Ranking Member Cardin, Distinguished members of the 
committee, it is an honor to be with you today as President Trump's 
nominee to be the U.S. Ambassador to Japan. I am humbled that the 
President has entrusted me with this opportunity to work with the White 
House, Secretary Tillerson, and our talented and dedicated officers at 
the State Department and Mission Japan to lead our engagement with such 
an important ally. Few nominees are fortunate to testify before their 
own senators, and I am privileged to be here before fellow Tennesseans 
and good friends, Chairman Corker and Senator Alexander. Knowing that I 
have not journeyed here alone, I would like to take a moment to express 
my love and gratitude to my family who are with me today: my wife, 
Chrissy, and my children, William Hagerty, Stephen Hagerty, Tara 
Hagerty, and Christine Hagerty. Though they are not with me today, I 
would like to acknowledge Chrissy's mother, Terry; my mother, Ruth and 
our siblings who are watching from home. And importantly I would like 
to acknowledge our fathers Bill Locke-Paddon and Bill Hagerty who are 
with us in spirit today.
    The Trump administration has made clear in words and actions the 
high priority it places on our alliance, partnership, and friendship 
with Japan. The President hosted Prime Minister Abe just three weeks 
after his inauguration. The Vice President visited Japan last month. 
Secretaries Tillerson, Mattis, and Ross traveled to Japan early in 
their tenures. This rapid, senior-level engagement underscores the 
strength and importance of our security alliance and overall bilateral 
relationship.
    Mission Japan is staffed by over 700 dedicated men and women 
working diligently to advance US interests in Japan and throughout 
Asia. They support one of our nation's most important partnerships, and 
I could not be more excited about the opportunity to lead this team, if 
confirmed. I also look forward to working with the leadership of our 
distinguished U.S. forces in Japan in managing our all-important 
Alliance. Moreover, our bilateral relationship is supported by many men 
and women right here in Washington, whether it be our Japan desk at the 
State Department or the many departments and agencies that work with 
their counterparts at Mission Japan every day. This committee and other 
legislators and their staffs play and active and vital role in guiding 
this critical relationship and I would like to underscore my deep 
appreciation for the leadership and engagement that go into making our 
relationship with Japan among the strongest any two countries might 
hope to achieve.
    I strongly support the administration's approach, having seen 
firsthand the importance of this relationship through my own 
experiences with Japan. These personal connections began when I worked 
in Tokyo for three years in the late 1980s and early 1990s with the 
Boston Consulting Group. That time in Tokyo brought home to me our two 
countries' shared economic interests and security priorities, while 
affording me lasting friendships and a deep appreciation of Japanese 
culture.
    Years later, as Commissioner of the Tennessee Department of 
Economic and Community Development, I managed a number of offices 
overseas, including one in Japan, with a focus on attracting foreign 
investment and jobs to our state and promoting the export of Tennessee 
goods abroad. Our success was unprecedented. Tennessee became the first 
state to be ranked number one in economic development two years in a 
row, in 2013 and 2014. According to IBM's Global Location Trends 
report, Tennessee was also the top state in the nation for job creation 
resulting from foreign direct investment for two of the years that I 
served in the Governor's Cabinet.
    We were particularly effective in regard to Japan, as 40,000 
Tennesseans are now directly employed by Japanese firms. In fact, Japan 
accounted for 60 percent of the billions of dollars in total foreign 
direct investment we brought to our state, outpacing the investment of 
all other countries combined.
    Japanese firms invest in the United States because they see a 
strong workforce and long-term earnings potential. Likewise, American 
companies invest in Japan's large domestic markets. In certain sectors, 
like financial services, American firms generate a significant net 
surplus. I would also aim to support new trade opportunities and 
enhanced access for U.S. firms in the Japanese market to narrow the 
overall deficit with Japan.
    As a fellow champion of the rule of law and market principles, 
Japan has shown its willingness to work with the United States to 
ensure free, fair, and balanced trade that is governed by high 
standards. In 2016, the United States exported $45 billion in goods and 
$63.3 billion in services to Japan, our fifth largest export market. 
The Department of Commerce estimates that these exports supported over 
600,000 American jobs at U.S. companies.
    I believe we can do even better. If confirmed, I will support U.S. 
efforts to tap export opportunities in agriculture, defense, 
manufacturing, traded services, and what I see as a major emerging 
opportunity in the energy sector. During his recent visit to Japan, 
Vice President Pence launched a new Economic Dialogue as a vehicle to 
strengthen the bilateral framework for trade and investment. If 
confirmed, I look forward to contributing to this endeavor, 
particularly as a way to address our large trade deficit with Japan in 
goods. I would also strive to leverage my Tennessee experience to 
encourage more Japanese investment in the United States, with a view to 
generating even more jobs, particularly in high-skill sectors. Japanese 
companies has indicated a strong desire to invest in U.S. manufacturing 
and infrastructure. Our new Economic Dialogue under the leadership of 
Vice President Pence and Vice Prime Minister Aso should provide the 
critical groundwork to advance our joint success.
    While trade and investment have been a professional focus of mine, 
I know that the anchor of the overall U.S.-Japan bilateral relationship 
consists of more than mutual economic pursuits. This relationship is 
anchored by a shared commitment to the vision of democratic values. On 
any given day, you will find the United States and Japan cooperating 
closely on global priorities, as seen in our joint efforts with 
policing in Afghanistan, anti-piracy operations in the Gulf of Aden, 
and humanitarian assistance in the Middle East. The U.S.Japan 
partnership enjoys strong bipartisan support in the Congress and in the 
Japanese Diet, making our bilateral ties even more deeply rooted.
    Foremost in our relationship is the U.S.-Japan Alliance, the 
cornerstone of regional peace and security, as well as a platform for 
global cooperation. The United States has more than 50,000 U.S. 
military personnel and some of our most advanced defense assets 
stationed in Japan. The deployment of our best people and our best 
technology to Japan reflects the ironclad commitment of the United 
States to the Alliance--and to the peace and stability of the Asia-
Pacific region. This commitment is more critical than ever in the face 
of fast-emerging security challenges, both in the region and beyond. 
Most notably, North Korea's nuclear and ballistic missile programs 
represent the region's most acute threat. We should continue to 
coordinate closely with Japan and trilaterally with the Republic of 
Korea in pressuring the Kim Jong-Un regime to abandon its unlawful 
nuclear, ballistic missile, and proliferation programs. We remain 
prepared to defend ourselves and our allies, including Japan. The U.S. 
commitment to defend Japan through the full range of U.S. military 
capabilities is unwavering.
    Japan has also worked closely with the United States to uphold 
freedom of navigation, overflight, and commerce. The evolving 
situations in the East and South China Seas represent a source of 
concern. Japan's commitment to assume larger roles and responsibilities 
in the Alliance and to play a more active role in international 
security activities is integral to the U.S. security posture. Japan's 
desire to do more is in keeping with the imperative to adapt our 
Alliance to changing times and threats.
    Just as we value the Japanese Government's support for the 
Alliance, so too we must thank the localities that host U.S. forces, 
particularly in Okinawa. For decades, communities across Japan have 
offered their friendship to our U.S. service personnel and their 
families, who aim to reciprocate by being the best neighbors possible. 
We have pursued measures to reduce the footprint of our military 
presence in Japan. Aviation training relocation, the transfer of assets 
to bases outside Okinawa, and the return of base properties are all 
indicative of this aim. As Ambassador, I would continue to build strong 
relations with host communities while ensuring our continued capability 
to fulfill our Security Treaty commitments.
    Through exchange programs, cultural activities, and reconciliation 
efforts, the United States and Japan have developed a close 
understanding between our two peoples as an enduring foundation for a 
strong bilateral relationship. As President Trump noted during Prime 
Minister Abe's visit in February, ``the bond between our two nations, 
and the friendship between our two peoples, runs very, very deep.'' If 
confirmed, I would aim to strengthen our people-to-people ties even 
further. In particular, I envision a revitalization of student 
exchanges, which have dropped almost 60 percent in the past two 
decades.
    In sum, the U.S. partnership and alliance with Japan is a central 
pillar of our role in Asia and beyond. Drawing on the strength of the 
entire U.S. Government, particularly our U.S. military personnel, the 
devoted officers of our U.S. Foreign Service and the many talented 
individuals representing multiple agencies of our federal government 
while serving as part of our Mission in Japan, I would, if confirmed as 
Ambassador, endeavor to deepen our partnership and alliance with Japan 
so as to respond effectively to regional and global challenges. I am 
honored to be considered for this critical post, and I will focus all 
my strength on improving the lives and security of my fellow Americans 
through engagement with our strongest ally in Asia.


    The Chairman.  Thank you very much.
    As is the norm, I will defer to our ranking member and save 
my time for interjections. I am going to step upstairs for a 
hearing just for a few minutes at about 9:58 and come back. But 
to our distinguished ranking member and my friend, Ben Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Mr. Hagerty, you have a very strong background, and you 
have been nominated to be Ambassador to a country that the 
United States has a very strong tie and relationship. So that 
makes this hearing a little bit more challenging for us. But we 
always find ways to try to inject some important discussions 
during these hearings.
    And as I mentioned in my opening comments, the United 
States and Japan working together can advance values that we 
have in common. So when we talk about trade, we can promote 
labor standards by working together. We can promote 
intellectual property protections. We can deal with currency 
manipulation, those issues where Japan and the United States 
should be able to advance causes together, including good 
governance and respect for human rights.
    So I just really want to mention two areas of concern on 
human rights. I try to focus on human rights wherever I can 
because I do think it is one of the real important values that 
America brings to the global community.
    We have had challenges between the relationship with Japan 
and South Korea in dealing with World War II issues. And I 
think advancements have been made by both countries, and I 
congratulate the leaders of both countries. Prime Minister Abe 
has made great advancements in dealing with South Korea, and I 
think that was encouraged by the United States and we need to 
continue those advancements.
    But in December 2013, Prime Minister Abe visited a 
controversial shrine to World War II, which included several 
class A war criminals. Our embassy spoke out against that visit 
as being insensitive. And I underscore that because that is a 
close friend, and yet what we do in our embassy, what our 
Ambassador does in Japan is an important message about where we 
need to make sure that we advance our values, even with a 
friend when we think they are doing something that is 
inappropriate.
    I would just like to get your views as to your role, if 
confirmed as our Ambassador, to be willing to advance our 
values even if at times we disagree with the Government of 
Japan, your willingness to speak out.
    Mr. Hagerty. Senator, I appreciate the challenge that you 
raise. My job will be to create a sense of trust and fair 
dealing with the Japanese Government and with the citizens, but 
also to be a steadfast supporter of our values as Americans and 
advance American interests. And I would have no problem 
speaking to the Japanese and conferring with them on issues 
that are contrary to our values at the appropriate time and at 
the appropriate conditions.
    Senator Cardin. Well, sometimes we can advance the agenda, 
but sometimes the agenda is advanced by the circumstances and 
requires us to be prepared to speak out even though it may not 
have been the time that we wanted to because of circumstances.
    I am going to be asking you, if confirmed as our 
Ambassador, to take on those challenges and to work with this 
committee. This has never been a partisan issue in this 
committee, our concern about human rights globally. And we will 
be looking to you to not only help us in regards to Japan, but 
in regards to the region since Japan is one of our closest 
allies and shares our values in the Asia-Pacific region.
    Mr. Hagerty. Indeed, Senator, I look forward to working 
with you and the rest of the members of the committee on that.
    Senator Cardin. I appreciate that.
    I want to talk a little bit about Okinawa and Guam and the 
challenges we have had. Our committee has a direct interest. 
The Armed Services Committee has a direct interest in this. 
This is an area that requires diplomacy. The challenges here 
have grown over time. The base has been there for a long time. 
The problems have gotten more severe politically particularly 
for the Japanese politics.
    Mr. Hagerty. Indeed.
    Senator Cardin. But we also have had American politics as 
to how we deal with where our base should be, what is in the 
best interests of regional security.
    So can you just share with us how you intend to advance 
that issue if you are confirmed as Ambassador?
    Mr. Hagerty. Senator, I spoke with Admiral Harris just 
yesterday on this topic. It is a slow advancing topic but one 
that is making progress in terms of our relocation of the 
Fatenma operation there. Things are moving slowly, but they 
have begun construction now out near Camp Schwab and I see 
progress moving in that direction.
    The challenge is significant, though. Okinawa has grown up 
around our base there, and it is now a heavily populated area 
where we see many military operations happening in a fairly 
densely populated area there in Okinawa. There are tensions 
between the Okinawa Government and central government in Japan 
that we have to be mindful of, but I intend to put my attention 
to that and work closely with our military forces there to try 
to continue to advance the cause.
    Senator Cardin. And you are prepared to give your personal 
time meeting with the community as well as meeting with our 
military so that we can have seamless communications between 
the U.S. presence and the local political leadership.
    Mr. Hagerty. Indeed.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Congratulations, Mr. Hagerty. Welcome to your family as 
well.
    I want to talk about trade, something that we mentioned 
when we visited with you in my office. The United States is the 
most competitive supplier of soda ash in the world because of 
the abundance of raw material, trona, in our country. U.S. 
natural soda ash is refined from the mineral trona. The Green 
River Basin in Wyoming has the world's largest known deposits 
of this naturally occurring trona. It is a key component of 
glass, detergents, soaps, chemicals. It is also used in many 
other industrial processes.
    American soda ash has long been regarded as the standard of 
quality, purity, and energy efficiency and production. But 
currently Japan, as we have discussed, has a 3.3 percent tariff 
on natural soda ash imports. Eliminating the tariff on 
naturally sourced soda ash would benefit Japanese 
manufacturers, as well as U.S. producers.
    So will you commit to me to work on eliminating Japan's 
tariff on U.S. natural soda ash and help make eliminating trade 
barriers and increasing exports to Japan for all U.S. 
industries a priority?
    Mr. Hagerty. I will certainly make that a priority, Senator 
Barrasso.
    Senator Barrasso. And next is Wyoming beef. Expanded trade 
is critical for the economic growth and competitiveness of our 
businesses, workers, farmers, ranchers.
    In December of 2003, Japan closed its market to U.S. beef 
imports after a Canadian-born dairy cow in Washington State 
tested positive for something called BSE. At the time, Japan 
was the largest export market for U.S. beef. It was valued at 
over $1.4 billion a year for the United States.
    In 2006, Japan partially reopened their market to U.S. beef 
that is aged 20 months or younger. They further erased 
restrictions--or eased restrictions in 2013 by increasing that 
age barrier to 30 months and younger. But despite the actions, 
American farmers and ranchers still operate at a competitive 
disadvantage in the Japanese markets.
    So again, American farmers and ranchers produce the highest 
quality beef in the world. They have clear, consistent 
standards. We do here at home for animal health, for food 
safety.
    So do you believe it is important to secure strong market 
access for U.S. beef and other important American commodities 
in Japan?
    Mr. Hagerty. Indeed, I do, Senator Barrasso. As a boy, I 
raised cattle myself, and I appreciate the industry and the 
needs of the industry. When I lived in Japan, I appreciate the 
quality of American beef, and I would love to have the access 
to it. The tariff structure is complicated, and I would be 
delighted to work toward improving that situation.
    Senator Barrasso. And then the final question has to do 
with energy security. You know, after Fukushima, all of Japan's 
nuclear reactors were shut down. Since that time, Japan has 
been working to create a strategic energy mix. The country 
currently relies on imported coal, oil, liquefied natural gas 
for more than 80 percent of its energy supply. And as we 
talked, I was just there a couple of weeks ago talking about 
energy in Japan. Strategically Japan seeks to ensure its energy 
security by maintaining as diverse an energy portfolio as 
possible in terms of both fuels, as well as suppliers.
    So do you support the United States increasing our energy 
exports to Japan? And if confirmed, will you assist U.S. 
businesses and industries to gain greater access to Japanese 
markets?
    Mr. Hagerty. I will. And I see that both as an economic and 
a strategic opportunity, Mr. Senator.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Risch [presiding]. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Thank you, Mr. Hagerty, and your family. Thank you for your 
willingness to take your considerable talents and experience 
and apply them to representing the United States in sustaining 
and expanding our relationship with this absolutely vital ally 
that shares a lot of our values, a commitment to rule of law, 
to a market economy, to democracy in a part of the world where 
we have a lot of other competing and challenging interests and 
concerns.
    As I mentioned when we met before, I want to briefly touch 
on three different areas. You have just had to answer searching 
questions about American beef, and my State is very concerned 
about American poultry. So we want to make sure that chicken is 
on the menu at the same time that beef is.
    Mr. Hagerty. Understood, Mr. Senator.
    Senator Coons. And as we discussed, in trying to reach a 
fair trade relationship with Japan we have often struggled to 
get full market access for American poultry.
    Is that something you will make a priority in your service 
as Ambassador?
    Mr. Hagerty. Indeed, I will, Mr. Senator. I look forward to 
doing that.
    Senator Coons. Any thoughts in particular about how we 
might address some of the non-tariff barriers faced by American 
poultry and other agricultural exports?
    Mr. Hagerty. Non-tariff barriers have been prevalent in 
Japan since I lived there more than 20 years ago. I spent a 
good deal of time then when I was on the American Chamber of 
Commerce in Japan working on those issues. I think they are 
still issues that impede the competitiveness of Japan industry, 
frankly, as well as impede our ability to export into that 
market. I look forward to continuing to work on multilayered 
distributions that are complex--overly complex, I should say--
regulations and regulatory frameworks that are not harmonized. 
And there are many opportunities I think, a lot of low-hanging 
fruit, frankly, where we can make some advancements.
    Senator Coons. One area where China has made sort of 
striking recent decisions is in banning the trade in ivory. I 
worked across the aisle with Senator Flake to pass a bill that 
was signed into law in the last Congress, the End Wildlife 
Trafficking Act. Japan remains one of the world's largest 
markets for legal ivory. And I was hoping that you might spend 
some time on the international traffic in illegal wildlife 
products because in a number of hearings on this committee in 
the last two Congresses we have concluded that that helps 
finance terrorism and international criminal gangs. I just want 
to draw your attention to my concerns and others' concerns 
about illegal ivory traffic.
    Last, intellectual property is an area where there has been 
some disagreements between the United States and Japan over the 
years. Seeking their partnership in strengthening the global 
intellectual property system is a way both for us to partner as 
the world's largest and third largest economy and frankly a way 
for us to put pressure on other countries in the region that 
really do not respect intellectual property at all.
    How would you imagine our working in partnership with Japan 
to strengthen intellectual property protections? And how do you 
see our withdrawal from the TPP, especially when it was so far 
along in terms of ratification and conclusion, affecting our 
ability to be a successful advocate for protections like 
intellectual property protections with Japan and in the region?
    Mr. Hagerty. On intellectual property, I would say being 
from Tennessee, particularly the music producing industry that 
is so strong in our State, I am very sensitive to the issues 
surrounding intellectual property. And I think our interests 
with Japan are aligned. Japan exports more to China than any 
other country. They have very real concerns about intellectual 
property protections in that country, as do we. So I would look 
to continue to find areas of alignment with Japan and continue 
to push forward in international fora to advance intellectual 
property rights.
    On the TPP, I am well aware of the issues raised by our 
withdrawal. But I also am well aware of the progress that was 
made through the course of those negotiations. I would look to 
find areas of common ground that have already been established 
and try to build on those that make the most sense for America 
and for our joint relationship and continue in a bilateral 
framework to try to advance our Nation's interests.
    Senator Coons. I will take my last minute and ask what role 
you think Japan should play in helping our shared challenge in 
confronting North Korea's aggressive nuclear weapons program.
    Mr. Hagerty. Japan is a very important bilateral partner 
here, and there is an important trilateral relationship as well 
with South Korea. I think Japan is fully aligned, as we 
discussed privately in your offices. I do not see any daylight 
between our position and the Japanese position. They are 
obviously in closer proximity to the threat of North Korea and 
very concerned about it. But I think that we are completely 
aligned.
    As I mentioned a minute ago, I spoke with Admiral Harris 
yesterday, and this is one of the issues we spent a good deal 
of time talking about. And my sense from him as well is that 
there is great alignment there.
    Senator Coons. Good.
    Well, I look forward to supporting your service as our next 
Ambassador and appreciate that we are sending someone with your 
background and skill and expertise.
    Mr. Hagerty. Thank you very much, Senator.
    Senator Risch. Senator Portman, you are up.
    Senator Portman. Thank you, Mr. Chairman.
    And first, Mr. Hagerty, thanks for your willingness to 
serve. And I want to commend you for your statements you have 
made today about the importance of the relationship and how you 
intend to focus your efforts, should you be confirmed. I 
believe you will.
    Mostly, though, I want to commend William, Stephen, Tara, 
and Christine for their patience and their decorum this 
morning. They are going to be great in Japan as ambassadors for 
you. So you guys must be really proud of your dad.
    I was just in Japan on a congressional delegation trip. We 
had an opportunity to visit with a number of officials, 
including our military leadership there, including General 
Martinez. I also got a chance to meet with the trade minister 
who I have gotten to know a little bit over the years, Minister 
Seko, and also we met with the Chief Cabinet Secretary Suga who 
you probably know who is in an incredibly important position 
right now with relationship to the ongoing discussion between 
Vice President Pence and Foreign Minister Aso and the 
administration trying to rekindle some of these trade talks we 
talked about.
    I appreciate what you said about TPP. You know, one of our 
concerns about TPP, from those of us in auto-producing States, 
including Tennessee where you also have American manufacturers, 
is this notion of what the rules of origin would be, in other 
words, cars produced in other countries affect because of the 
number of parts that would come into Japan would be considered 
Japanese cars and would get the benefit of the TPP. So I hope 
you will focus on that issue if we continue negotiations with 
Japan, which I hope we will, on a bilateral relationship.
    Another one is just the frustration that we feel about 
Japan not opening their market to U.S. automobiles. This is 
something that I hope you will focus on in your new role. Let 
me give you some numbers about this. Japan is one of the 
largest auto markets in the world. In fact, it is the third 
biggest I am told, 5 million annual sales. It is the second 
only behind the United States and China, which is consistent 
with the size of their economy. Imports from the United States, 
Europe, and the rest of the world account for 6.7 percent--6.7 
percent of the cars in Japan. And by the way, the U.S. does not 
export as many cars as the Europeans do to Japan. So it is 6.7 
percent, a paltry amount, but if you go to the U.S. market, it 
is even smaller. Japan domestic automakers export about half 
the vehicles that they build, and this includes 1.6 million 
vehicles to the United States in 2015.
    So there is no other developed country in the world that 
has such a small share of import penetration. The U.S. is about 
45 percent imported automobiles. That is roughly equivalent to 
the other OECD countries.
    So, one, why do you think that penetration of U.S. vehicles 
is so low? Why are we not able to break through that market and 
have great automobiles produced in States like my home State of 
Ohio being driven in Japan? And what are you willing to do 
about it in what, again, I think will be an opportunity you 
will have both as Ambassador and as someone who has good 
relationships with the Government and has a business background 
to be able to be effective? What will you do?
    Mr. Hagerty. Well, Senator, it is a very complicated 
question you raise, and I appreciate the issue.
    I think it goes back to some of the structural barriers 
that we were discussing earlier. When I lived in Japan a number 
of years ago, the automotive market has a very complex 
distribution system there. There is also the harmonization of 
standards. That is an issue. Again, I think this is an area 
where we can find common ground.
    I am fortunate to have Nissan headquartered in our home 
State, their North American operations, and a very close 
relationship with their team not only in the U.S. but in Japan. 
And their president is the head of Japan Auto Association. I 
look forward to getting to work with that group there as well 
on harmonization issues and finding opportunities where we 
might be able to ease some of these structural impediments that 
exist. But I think it is not just tariff, but it is structural 
barriers.
    Senator Portman. You mentioned harmonization of standards. 
In their free trade discussions with the Europeans, my 
understanding is they have already agreed to accept the 
European safety standards as an example. We have the best 
safety standards in the world here in the United States of 
America. And yet, the Japanese will not accept our safety 
standards, which is a non-tariff barrier. And it makes it much 
more expensive for us to sell a car in Japan because it has to 
conform to different safety standards that we do not believe 
are based on good science.
    So that is an example where we would expect you to stand up 
for us and to open up that market more in the context of a 
bilateral trade negotiation certainly. But even in the absence 
of that, to be sure with one of our greatest allies in the 
world that we have access to their market as they have access 
to ours.
    Mr. Hagerty. Understood, Senator. Thank you.
    Senator Portman. Just briefly with regard to security 
relationship, again, incredibly important right now. And as you 
indicated, they are a force multiplier for us. And we have 
about 40,000 to 45,000 troops, I understand, in Japan today.
    One of the concerns that I have, having been there 
recently, is the degree to which we are able to protect our own 
troops. There are certain restrictions with regard to what we 
are able to do offensively, as an example, if we perceive a 
threat. Have you thought about that issue and do you have any 
suggestions as to how we can ensure that on all of our bases in 
Japan, we have the ability to help protect the Japanese people 
from potential threats from North Korea today, which has been a 
focus obviously, but also to ensure that we can protect our own 
troops from the possibility of conventional or even nuclear 
missiles?
    Mr. Hagerty. Well, Senator, if I am fortunate to be 
confirmed as Ambassador, my top priority is going to be safety 
and security of Americans on Japanese soil. And I was fortunate 
to speak with Admiral Harris yesterday about this, particularly 
about what might happen further if the deterioration and the 
situation in North Korea gets worse, how we might think about 
movement of Americans in that situation and the threat that 
exists. It is something that I need to study a good deal more 
to give you a definitive answer, but it is something that I 
will put my foremost attention to.
    Senator Portman. I was struck in my recent visit--I think 
you probably will be too--that we have an incredible military 
presence there of brave men and women in uniform who are there 
in part to defend Japan, and Japan is starting to step up more, 
which we want to see more of, to be able to protect themselves. 
But we also got to be sure that our own troops have adequate 
protection.
    And I thank you again for your willingness to serve and 
look forward to continuing the conversation in your new role as 
Ambassador to Japan.
    Mr. Hagerty. Thank you very much, Senator.
    The Chairman [presiding]: Senator Menendez?
    Senator Menendez. Thank you.
    Congratulations on your nomination. I appreciated your 
visit with me in my office.
    Japan is, as I said to you then, one of the most important 
strategic and economic partners that the United States has in 
the world. It is the fourth largest trading partner. It is the 
number one hold of U.S. treasuries. Always important. And 
obviously, particularly in the region, incredibly important to 
us.
    And since the end of World War II, the United States and 
Japan have built an important relationship that serves both of 
our strategic interests. And I am impressed with your 
background, certainly your knowledge of the language, and all 
of the commercial and trade issues that you have led there. But 
I want to explore with you a little bit of the non-commercial 
trade issues because those are equally important in this 
bilateral relationship.
    And as a prelude to that, I wonder if you can share with me 
when the President was a candidate, his assessment of Japan is 
that Japan has, quote, not taken care of us properly. Have you 
spoken with the President about his view of our relationship 
with Japan? And has that position changed since his taking 
office?
    Mr. Hagerty. I have spoken with the President about his 
views. Most of our conversations have focused on trade. The 
discussion that you raise I think has to do with our security 
and with the contributions and the relative contributions of 
American investment in that region, as well as the Japanese 
investment in the area.
    What I am heartened by is that the President, since making 
those comments that you reference, has spent a good deal of 
time with Prime Minister Abe. Vice President Pence has traveled 
over. We have had three cabinet members in country in Japan. So 
I think that we are working to get much closer in terms of our 
understanding of what needs to be done and what the 
opportunities might be.
    Senator Menendez. So you see that statement as more of a 
spending by Japan in the military context for their defense, as 
well as the joint defense with us, than anything else.
    Mr. Hagerty. That is my interpretation of it, Senator.
    Senator Menendez. Let me ask you the next question. On the 
campaign trail, the President as a candidate said in an 
interview with Chris Wallace of Fox News that North Korea has 
nukes. Maybe they would--meaning Japan--be in fact better off 
if they defend themselves from North Korea, including with 
nukes. As you go to a country that has a history here of not 
pursuing nuclear power for those purposes and considering the 
consequences of the potential of igniting a race for nuclear 
weapons in the region, what views do you take with a view to 
Japan as it relates to should they or should they not be 
pursuing nuclear weapons?
    Mr. Hagerty. Prime Minister Abe just very recently has made 
an unequivocal statement that they will not be pursuing nuclear 
weapons in Japan. And I respect that. They have a very unique 
history in Japan, having been the only country to receive the 
results of a nuclear weapon, and I think that sensitivity is 
something that I appreciate and hold close.
    Senator Menendez. And we are not going to be urging them to 
pursue nuclear weapons, I assume, if you are confirmed.
    Mr. Hagerty. I have no intention to do that.
    Senator Menendez. Now, with reference to Russia, Prime 
Minister Abe has pursued a closer relationship with Russia, 
including efforts to resolve some longstanding territorial 
disputes over islands in the Kuril chain and to conclude a 
peace treaty from World War II. They seem benign, but do you 
believe these efforts at reconciliation--Russia with Japan--or 
having a more strategic relationship between Japan and Russia 
is in the national interests and security of the United States?
    Mr. Hagerty. The situation with the islands I think is very 
close to the Prime Minister's heart, and I know he has invested 
a good deal of time on that territorial dispute. I also know 
that the Prime Minister, at least in what I have read, is 
concerned about the proximity of Russia and China becoming even 
more close. So I know that there might be many reasons for his 
engagement, but I know that we are very strong allies with 
Japan. And my sense is that they continue to support us in our 
position with Russia with respect to Ukraine and other vital 
strategic interests that are different. So I am not as 
concerned perhaps as others that we will not be able to get a 
good result with this.
    Senator Menendez. So you think that Abe is doing this 
beyond his affinity for the islands and the territorial dispute 
because he seeks to create a greater distance between Russia 
and China?
    Mr. Hagerty. I am not certain of that, sir. I am just 
interpolating from what I have read, but I would like to study 
that more.
    Senator Menendez. Yes. Well, I hope you will pay attention 
to that as we go along because so far, Russia has not proven 
itself to be anything but an adversary of the United States in 
a whole different sort of way, violating the international 
order, cyber attacking the United States in its elections, and 
a whole host of other things. So while I have a great affinity 
for Japan, I also want our people to be keeping abreast of what 
they are doing as it relates to what they may perceive as their 
national interests but may affect ours.
    Mr. Hagerty. I appreciate your sensitivity.
    Senator Menendez. Thank you.
    The Chairman.  Thank you.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    And thank you for your testimony today.
    I want to go back to the trade side. I caught a little bit 
of Senator Portman's comments as I was walking in the door 
related to autos. But I believe that the Trump team has 
announced that they would like to pursue a bilateral 
arrangement with the Japanese. At least that has been 
expressed. Is that correct?
    Mr. Hagerty. The structure that Vice President Pence has 
put in place is an economic dialogue. It is the foundation for 
a bilateral discussion. I do not think that we have gone to the 
point of assessing that we are going to an FTA at this point.
    Senator Merkley. So often in the conversation about trade, 
people ponder a lot about China, about Mexico. But the trade 
deficit with Japan is larger than that with Mexico, I believe 
the second largest in the world, about $69 billion last year. 
And they range from services and goods and ag all put together.
    Why have we allowed such a longstanding structural deficit 
in our trade with Japan, and what should we do about it?
    Mr. Hagerty. Senator, if confirmed, my hope is to focus a 
great deal of attention to closing that trade deficit barrier. 
I think as we discussed earlier, there are a number of not only 
tariff issues and harmonization issues but also structural 
issues within the country of Japan that make it hard for us to 
penetrate.
    When I was the Secretary of Commerce for my home State, I 
was responsible for an office in Japan. And we opened a new 
effort to try and expand trade. It is frustrating. It takes 
considerable investment to put in place customer service 
networks, distribution networks, and the type of facilities 
necessary to properly serve a market. Localization requirements 
are also challenging because of the language difference. But I 
think that those are all areas that I would like to see us make 
more gains on.
    Also, I would say I am very optimistic about the potential 
to export energy to Japan, and I think that could have a very 
immediate effect on our trade deficit.
    Senator Merkley. So the conversation about the barriers in 
the Japanese economy has gone on for decades. We push; they 
resist. We push; they resist. And essentially they get to 
continue running this vast advantage in trade with us.
    What can be done differently now that has not been done 
before?
    Mr. Hagerty. That I think will be the focus of the new 
bilateral relationship that Vice President Pence is 
establishing, and I look forward, if I am confirmed, to 
becoming a member of the team to work very hard on that.
    Senator Merkley. One of the things that you mentioned, when 
we were talking in my office, was that women in Japan are an 
underutilized part of the economic potential. Would you like to 
share any comments or thoughts or insights about that?
    Mr. Hagerty. Indeed, Senator, we had a good conversation on 
that. An observation that I made some 20-plus years ago when I 
was with the Boston Consulting Group is working with Western 
companies in Japan. As we assessed the performance of those 
staff, we found that women employees did a very good job. We 
also found that it was difficult for Western companies to 
compete against traditional Japanese companies to recruit male 
graduates from the top universities. So we, in fact, put in 
place for many of the Western firms doing business in Japan a 
strategy to recruit women into the workforce, and that worked 
very well. I am pleased to see that that is now migrated all 
the way into the broader workforce there because I think it has 
great opportunity.
    Senator Merkley. Another area that we pay some attention to 
is the conflict between Japan and China in regard to islands in 
the East China Sea. And we have recognized that the islands 
were covered by article 5 of the U.S.-Japanese treaty. The 
Chinese do not recognize that.
    What is the status of that dispute? And do any new efforts 
need to be made in that area?
    Mr. Hagerty. I was speaking with Admiral Harris yesterday 
about article 5, our responsibilities to that area in the East 
China Sea. I think we certainly have been unwavering in our 
commitment under that security treaty and our willingness to 
support Japan against any sort of unilateral effort to disrupt 
their administration of that island. I think the concern comes 
and probably will come later this summer as fishing season 
approaches, and that is something that we will watch very 
closely as we see more activity in those waters.
    Senator Merkley. One of the things that we were involved in 
recently was a joint exercise with Japan at the same time we 
were doing a joint exercise, a sea exercise, with South Korea 
to essentially draw attention to our military presence in the 
context of pressure being applied to North Korea. Do you 
anticipate there will be more joint, if you will, efforts to 
draw attention to the strength of the connection between U.S., 
South Korea, and Japan as we attempt to persuade North Korea to 
abandon its nuclear program?
    Mr. Hagerty. Senator, I commend the exercises that took 
place. I think they achieved a very strong purpose. I look 
forward to studying that more because I am not certain what our 
future plans are, but I look forward to working very closely 
with our military command in the area to get a better 
assessment of that.
    Senator Merkley. Thank you.
    Mr. Hagerty. Thank you.
    Senator Risch [presiding]. Thank you very much.
    Senator Young.
    Senator Young. Mr. Hagerty, thanks so much for your 
interest in serving. I really enjoyed our time together in the 
office. Just a few questions based on your written statement 
here today.
    You indicate that you strive as the Ambassador for the 
United States to Japan to encourage more Japanese investment in 
the United States with a view to generating even more jobs. 
Indiana, as we mentioned when we visited, is home to major 
Japanese brand automakers, Subaru, Honda, Toyota. Thousands of 
Hoosiers are employed there. They are really the centerpiece of 
many of our communities.
    And so I would just like to get your thoughts. You are on 
the record about what specific recommendations you have about 
how the United States and Japan might work in a more effective 
manner together to increase Japanese investment in the U.S.
    Mr. Hagerty. Well, Senator, thank you very much for raising 
that. I think we could not have a better person in Vice 
President Pence to help advance this cause. As you mentioned, 
he certainly gets it, and his success in Indiana is renowned 
around the country, if not the globe.
    So I think with the Vice President at the point of this, we 
have opened a new door, and we have the ability to take 
ourselves to a new level in terms of attracting more foreign 
direct investment because the Vice President understands, as do 
I, that we can build not only important economic ties but 
important strategic ties by increasing that foreign direct 
investment.
    There is an excess of capital in Japan, and I think the 
opportunity to earn returns in a market like the United States 
is very positive. I think that makes sense for their pensioners 
and their economy. I also think it helps the Japanese economy 
to expand more to the markets where they sell their goods. It 
helps to erase trade deficits. Localization lowers cost. It is 
better for consumers. There are many, many good reasons to do 
this.
    The Japanese are practicers of the Kanban, the just-in-time 
technique of managing their supply chain. And it is very 
obvious the closer you can get your suppliers to the OEMs, the 
shorter your supply chain, again the lower your cost. This is 
how we sold it in Tennessee. I am sure this is how Vice 
President Pence sold it in Indiana, and I think we can do a lot 
more of that.
    Senator Young. Do you see opportunities in the area of 
infrastructure? There is a lot of talk around this town about a 
major infrastructure package. Would this be one of the major 
targets of opportunity where a lot of Japanese capital, which 
is on the sidelines or earning learning a very low rate of 
return, might be put to a higher value use to the benefit of 
Americans?
    Mr. Hagerty. I think that is a great opportunity. It has 
certainly been something that has been discussed a good deal 
recently, whether it be a maglev train or other types of 
infrastructure investment where Japanese technology and capital 
could both be brought to bear in this country.
    Senator Young. Very well.
    You just invoked our Governor, now our Vice President, Mike 
Pence. I am glad you did that because as you know, he, along 
with Deputy Prime Minister Aso, has played a very important 
role in establishing this U.S.-Japan economic dialogue. As you 
know, it has three pillars of activity: common strategy on 
trade and investment rules and issues; cooperation in economic 
and structural policies; and lastly, sectoral cooperation. In 
your prepared remarks, you state that you look forward to 
contributing to this endeavor.
    How do you envision this program being carried out? What 
are top U.S. priorities? And what do you expect maybe some 
points of contention might be with respect to this?
    Mr. Hagerty. Probably the biggest opportunity would lie in 
looking to those things that have already been negotiated and 
advanced through some of the TPP discussions to determine which 
of those elements might make a good bilateral foundation for 
our ongoing arrangements.
    I would also look to the sector-specific opportunities 
because I think when you can take an industry-specific 
situation and then begin to work through it, you actually have 
a chance to make real progress as opposed to having more 
hypothetical approaches.
    Energy is an area that I see great potential. We have the 
opportunity to work with liquid natural gas, with other exports 
now we did not have before. And Japan is the number one 
importer, for example, of LNG. I think it is the number three 
importer of oil. But the United States has resources there that 
I think can very quickly be put into place. We need to invest 
in infrastructure on our side and on the Japanese side to make 
that happen. But I see that as a big and immediate opportunity.
    Agriculture has been a concern since I was there 25 years 
ago. It is going to remain a concern. It is something that I 
intend to focus on intently while I am there.
    Senator Young. Hoosiers farmers will be very happy to hear 
that. So thank you so much.
    And with that, I yield back.
    Senator Risch. Jeanne, welcome. Senator Shaheen, you are 
up.
    Senator Shaheen. Thank you very much, Senator Risch.
    Welcome, Mr. Hagerty. Congratulations on your nomination. 
We all appreciate your willingness to serve the country.
    I wanted to follow up a little bit. I think Senator Young 
was asking about trade and what areas might be ripe for trade. 
I did not hear the beginning of that question. But I wanted to 
follow up on some of those trade issues.
    I heard that a number of the TPP countries are meeting 
actually today to talk about where to go given the U.S. 
withdrawal from that effort. Can you talk about if our 
withdrawal from the TPP has affected our relationship with 
Japan and what the perceptions are of what opportunities might 
still exist with the countries that we had been negotiating 
with?
    Mr. Hagerty. I appreciate your concern, Senator, and I 
think the Japanese Government has invested a lot of political 
capital in terms of bringing the TPP forward that relate to the 
negotiations, but I think Prime Minister Abe took it on and 
worked very hard to advance those discussions within his own 
country. They are in a position now where the United States has 
withdrawn from the TPP, but I am encouraged.
    The reason I am encouraged is that the Prime Minister and 
President have both met early on within 3 weeks I think of the 
inauguration. The President hosted Prime Minister Abe here in 
the United States. Vice President Pence has begun an economic 
dialogue with the Vice Prime Minister of Japan. We have had 
three cabinet members, Mattis, Tillerson, and Ross, all visit 
in country already. So at a personal level, at a relationship 
level, I see advancement taking place that encourages me that 
we will be able to still achieve a good deal of what we had 
hoped to accomplish in the TPP, what might have been hoped 
before, but also to find other areas, perhaps structural areas, 
that we can add to that and make significant advancements that 
work in a more bilateral framework.
    Senator Shaheen. And how important is it for us to continue 
to do that given China's growing role in many of the Southeast 
Asian countries?
    Mr. Hagerty. Evermore important I think. My hope is that we 
can continue to strengthen our alliance. Japan and the United 
States together, I think we are about 30 percent of the world's 
GDP. What concerns me is that China continues to flex its 
economic muscle, its strategic muscle in the area, and the last 
thing I think we want is the Chinese to be setting the rules of 
the road in Asia.
    Senator Shaheen. Absolutely. I certainly agree with that. 
We want to be part of that discussion.
    Mr. Hagerty. Thank you, Senator.
    Senator Shaheen. We all are very aware of the growing 
threat that not only the United States faces but certainly the 
Asian region that Japan is in from North Korea's continued 
nuclear efforts. So can you talk about how we might better 
leverage our relationship with Japan to address what is 
happening in North Korea? Are there things that we can be doing 
to better engage Japan in trying to address what is happening 
in North Korea?
    Mr. Hagerty. I feel that that is underway, Senator. I had 
the benefit of speaking with Admiral Harris about this 
yesterday. Our coordination with Japan is getting ever tighter. 
They have undertaken new interpretations of their constitution 
to enable them to work more closely with our military 
exercises. I think that what we see is not only an increase in 
military spending but also--and I think more important in my 
view--an increase in the interdependency and the coordination 
that is happening with our own forces. That I think yields 
great opportunity. The movements that have most recently 
occurred in the area of the Korean Peninsula with the U.S. 
military vessels, as well as Japanese, I think show a lot in 
terms of our combined strength and our partnership. And I think 
we will probably see more of that.
    Senator Shaheen. And are there ways in which Japan can be 
helpful working with us on engaging China in trying to 
encourage them to recognize that it is in the region's 
interests to demilitarize North Korea--denuclearize North 
Korea?
    Mr. Hagerty. I am certain that that is the case. China is 
Japan's largest export market. They have a very vested interest 
in that region. Japan certainly is closer to the threat in 
North Korea than we are, but they have very close economic ties 
with China as well. So I think together Japan and the United 
States can act as a unified front in moving China in the right 
direction in this situation.
    Senator Shaheen. And can you give us any update on any 
efforts so far that Japan might have engaged in with China on 
North Korea?
    Mr. Hagerty. I need to study that further, Senator, to give 
you a more definitive answer.
    Senator Shaheen. Thank you.
    And just a final question. I know that Japan's Government 
is engaging in efforts to increase women's economic empowerment 
and participation. Can you talk about what impact these efforts 
have had and what you will do as Ambassador to try and 
encourage Japan to continue to move in this direction?
    Mr. Hagerty. Senator, I have seen the impact of women 
engagement in Japan on a firsthand basis. More than 20 years 
ago, I was living in that country working with the Boston 
Consulting Group and working very often with Western companies, 
who then, at that time, found it very difficult to recruit top 
male graduates from the top universities, but they were able to 
recruit female graduates. As we evaluated their performance, we 
realized that female graduates could perform as well or better 
in many cases than their male counterparts. So we put together 
a concentrated program to help Western companies recruit 
females in that market more than 20 years ago. So it comes as 
no surprise to me that they are adding a great deal to the 
economy and I think the potential there is even greater.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Risch. Mr. Hagerty, thank you so much for being 
here, and I really appreciate you coming by the office so we 
could talk about the parochial Idaho questions. We are amused 
in Idaho when we see the stories about the potato chip 
shortage. I do not know if you have ever been to Idaho. We got 
potatoes.
    Mr. Hagerty. I have been fortunate to be in Idaho, sir, and 
I love the potatoes there.
    Senator Risch. Well, and my family is in the ranching 
business. So beef has also been an important issue for us. We 
had a good discussion about those things. And those trade 
issues are certainly important.
    You bring really unique qualifications to this job, and I 
really appreciate your willingness to take this on. Our 
relationship with Japan is so good, and it really is 
aspirational I think for all of us to have that kind of a 
relationship with every country in the world. We get along so 
well.
    And your counterpart, Ambassador Sasae, thank you so much 
for being here today. The Ambassador has been incredibly 
gracious and a great host when we have visited with him. So I 
know you represent us the same way when you are in Japan.
    Mr. Hagerty. Indeed. I am privilege to have a colleague 
like Ambassador Sasae to look to.
    Senator Risch. Thank you.
    Let me just say that we look forward to--and there is 
absolutely no reason why our relationship with Japan will not 
continue as it is. But as with any country, every country looks 
after its own interests first. That is particularly true when 
it comes to trade. And so these are delicate trade issues that 
need to be resolved, but it is in the interest of both 
countries to resolve trade issues between the countries. And 
after listening to you, I have every confidence that you will 
be able to do that.
    Finally, let me say there has been discussed here briefly 
the difficulties in the neighborhood with the North Koreans. 
You have instability and the insecurity and just misbehavior 
and bad things that that country is doing--its administration, 
its current regime. It cannot go on. I mean, this is going to 
be resolved, and I suspect it is going to be resolved on your 
watch one way or another, particularly with the President that 
we have is dedicated to bringing it to some kind of a 
resolution. We, obviously, hope it can be done peacefully. 
There are certainly some signs that we can be some--there would 
be some optimism that that can happen. Obviously, the Chinese 
are going to play an important role it. But then so will the 
Japanese play an important role. Again, I have every confidence 
that you can thread that needle.
    So thank you so much. Anything else you want to say for the 
record, the microphone is all yours.
    Mr. Hagerty. Thank you very much for the opportunity, 
Senator. I appreciate being here, and if I am confirmed, I look 
forward to advancing our relationship with the most important 
relationship that I can imagine abroad.
    Senator Risch. Thank you, Mr. Hagerty.
    Kids, are you ready to go the lunch? Yeah, I bet you are.
    All right. With that, the record will stay open until close 
of business on Friday for questions for the record. Mr. 
Hagerty, I know you know that the quicker you can get those 
back, the quicker this committee can act.
    Mr. Hagerty. Understood.
    Senator Risch. And the more we can stand this government 
up, the better off we will be. And we are going to make every 
effort to do that as quickly as we can.
    So with that, again, thank you again to you for your 
willingness to serve. Thank you to your family for taking this 
on because there are obviously sacrifices that go with that.
    And with that, I will declare the meeting adjourned.
    [Whereupon, at 10:35 a.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
       Submitted to William F. Hagerty by Senator James E. Risch

    Question 1. In 2005, the United States and Japan signed an 
agreement that allowed the import of chipping potatoes from about a 
dozen U.S. states. However, for more than ten years, Idaho has been 
denied access to the Japanese market while all other states in the 
agreement have had access. For the past two years, Idaho worked with 
Japanese officials to finally resolve any concerns they had about the 
import of Idaho potatoes. Having met all of their requirements, Idaho 
growers have waited for months for final approval from the Japanese 
Ministry of Agriculture, Forestry, and Fisheries.

   If confirmed, what will you do to ensure Idaho is able to receive 
        the same market access that the other states in the agreement 
        enjoy?

    Answer. If confirmed, I will work to expand market access for U.S. 
agricultural exports to Japan, including for Idaho potatoes. I believe 
the Japanese market presents important opportunities for U.S. 
exporters. Furthermore, I would support pursuit of these opportunities 
and enhanced market access for U.S. firms in the Japanese market as 
part of the administration's broader effort to reduce the overall trade 
deficit with Japan. I will make this particular matter a priority.

    Question 2. For the past two years, Japan and South Korea have held 
a series of meetings and signed agreements in order to deepen 
cooperation and improve their relationship including establishing a hot 
line between their minsters of defense, reinstituting civil servant 
exchanges, and restarting a trilateral summit with China. However, 
there are concerns that with new political leadership in Seoul some of 
this rapprochement may slow down or stop.

   Do you believe there are valid concerns about South Korea stepping 
        back from any of these agreements? If so, which agreements do 
        you believe are the most crucial for continuing to move 
        forward?

    Answer. I was heartened to see media reports of the Republic of 
Korea's President Moon's phone call with Japanese Prime Minister Abe, 
in which the leaders reaffirmed the need for close coordination in 
response to North Korea's unlawful ballistic missile, nuclear, and 
proliferation programs. Japan and the Republic of Korea are two of our 
most important allies in the Asia-Pacific region, and we recently have 
seen significant progress in our trilateral cooperation. Our three 
countries have carried out trilateral military exercises, and the 
General Security of Military Information Agreement (GSOMIA) recently 
signed by Japan and the Republic of Korea has established a new basis 
for sharing defense-related information. I believe there is scope to 
strengthen our security cooperation further, and if confirmed I will 
work to that end.



                               __________


           Responses to Additional Questions for the Record 
     Submitted to William F. Hagerty by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. On a volunteer basis, I have worked hard to instill the 
values of American democracy in our youth. I have served for decades as 
a volunteer leader in the Boy Scouts of America organization. This 
service included my role on the Board of the Far East Council in Japan, 
where we delivered a first-rate values-based program to youth in Japan. 
I have served as a BSA merit badge counselor for Scouting's Citizenship 
in the Community, Citizenship in the Nation and Citizenship in the 
World programs. By instructing American youth in the fundamental 
precepts of citizenship, it is my hope that the principles of American 
democracy permeate their lives and their future impact on humanitarian 
issues as they may encounter them around the globe.
    Over many years as a donor, I have been privileged to support my 
friend who is a world-leading urologic surgeon, Dr. Jay Smith 
(Vanderbilt University Medical Center). Dr. Smith travels annually in 
Africa with the Urological Cancer Foundation, a 501(c)3, to perform 
complex urinary reconstruction for women who are victims of extreme 
sexual violence in eastern Democratic Republic of Congo. Jay and his 
team have worked with victims of Joseph Kony and the Lord's Resistance 
Army.
    The Foundation also works to stand up durable training programs in 
countries vastly underserved with surgical specialists. The most 
successful programs have been in Liberia and Malawi.
    Dr. Smith and his colleagues have performed hundreds of operations 
for patients who had no other options for surgical care. The foundation 
has sponsored 23 different surgical mission trips to Africa. In the 
process, they have trained local surgeons and there are 7 surgeons 
practicing in those countries whose training has been greatly 
facilitated by their efforts and there are currently more in the 
pipeline.
    My recent public service as the Tennessee Commissioner of Economic 
and Community Development was largely focused on advancing the 
interests of Tennesseans across our state, the nation and the world. 
The overseas offices/representatives under my purview were advocates 
for Tennessee interests. A derivative of promoting Tennessee presence 
in other countries is that American values can translate through 
American economic engagement overseas.

    Question 2. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Japan?

    Answer. Yes. As Ambassador, I would look forward to establishing 
robust relations with human rights groups, civil society, and other 
non-governmental organizations both in the United States and in Japan. 
I understand Mission Japan has built a great network of relationships 
with many different groups across the spectrum of human rights issues, 
and I would look to build upon that cooperation.

    Question 3. Will you engage with Japan on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. Yes. The U.S.-Japan relationship is anchored by a shared 
commitment to democratic values and human rights. As Ambassador, I 
would look to coordinate closely with Japan in promoting human rights 
regionally and globally, including with a focus on the dire human 
rights situation in North Korea.

    Question 4. Over the past several years China has made frequent 
incursions into the Japanese-claimed territorial waters around the 
Senkaku Islands in an apparent escalation of pressure by Beijing. What 
is the U.S. Government's position on the Senkaku Islands and how can we 
support a peaceful outcome while standing by our alliance commitments 
to Japan?

    Answer. The United States' position on the Senkaku Islands is clear 
and longstanding and was reaffirmed by President Trump in February. 
While the United States does not take a position with respect to 
sovereignty, the Senkaku Islands have been under Japanese 
administration since the reversion of Okinawa in 1972; as such, they 
fall within the scope of Article 5 of the 1960 U.S.-Japan Treaty of 
Mutual Cooperation and Security. The United States opposes any 
unilateral action that seeks to undermine Japan's administration of the 
Senkaku Islands. If confirmed, I will diligently continue to monitor 
the situation in the Senkakus and consult closely with Japan as allies.

    Question 5. Earlier this week, Pyongyang announced that it had 
conducted another ballistic missile test. As you know, North Korea's 
provocations threaten Japan as much as they do South Korea. A 
successful policy requires sustained diplomatic engagement to 
strengthen our alliances and partnerships with Japan, which would 
bolster our deterrence capabilities and help achieve our goal of a 
denuclearized Peninsula. How would you assess the threat North Korea 
poses to Japan? How would you advise the Trump administration to 
clearly define our bottom lines with Pyongyang and to effectively 
leverage a multidimensional approach that knits together military 
pressure, alliances, economic sanctions, human rights and diplomatic 
engagement?

    Answer. North Korea's nuclear, ballistic missile, and proliferation 
programs represent a direct threat to Japan and U.S. troops stationed 
in Japan. North Korea openly states that its ballistic missiles are 
intended to deliver nuclear weapons to strike cities in the United 
States, the Republic of Korea, and Japan. The potential for a North 
Korean attack on South Korea or Japan is real. If confirmed, I will 
work to coordinate closely with Japan to align our diplomatic, 
military, and economic response to North Korea's bellicose behavior, 
with the goal of pressuring the regime in Pyongyang to abandon its UN-
proscribed nuclear, ballistic missile, and proliferation programs. I 
will also continue to promote trilateral cooperation among the United 
States, Japan, and South Korea, as well as diplomatic coordination with 
partners around the world, to counter the threats posed by North Korea 
to international peace and stability.Questions for the Record Submitted 
to

    Question 6. Helping to support Japan and South Korea as they have 
sought reconciliation over ``history issues'' and the Comfort Women has 
been an important priority for the United States over the past several 
years, especially given the importance of deepening trilateral 
cooperation to deal with North Korea and other regional security 
challenges. How do you see your role, if confirmed, in helping to 
continue to support reconciliation between our two allies, friends and 
partners?

    Answer. Japan and the Republic of Korea are two of our most 
important allies in the Asia-Pacific region, and our trilateral 
cooperation is critical in responding to the North Korean threat. If 
confirmed, I would encourage all parties to work together to address 
history issues in a way that promotes healing and reconciliation.

    Question 7. What specific steps, if any, will the Trump 
administration take to help Tokyo and Seoul put their often-tense 
relations on a sounder footing, especially on security issues?

    Answer. If confirmed, I will support stronger relations between 
Tokyo and Seoul, particularly as a basis for deeper trilateral 
cooperation among our three countries. Close trilateral coordination is 
crucial in particular to address threats posed by the DPRK. I think 
there is scope to strengthen our security cooperation, through 
information sharing and joint exercises. I would also push for closer 
collaboration on other regional and global issues, such as humanitarian 
development and women's empowerment, which will allow us to leverage 
the efforts of two of our allies while building working-level contacts 
and patterns of cooperation between the Japanese and South Koreans.

    Question 8. Your two immediate predecessors, Caroline Kennedy and 
John Roos, both visited Hiroshima and Nagasaki on the anniversaries of 
the atomic bombing of those cities. In 2016, Obama became the first 
sitting U.S. president to visit Hiroshima. If confirmed, do you plan to 
continue the practice of visiting these cities on the anniversary of 
the bombing?

    Answer. I understand Ambassadors Kennedy and Roos' attendance at 
these anniversary commemorations was very positive and promoted 
reconciliation efforts. If confirmed, I would confer with the White 
House and Department of State in considering the benefits of my 
participation.

    Question 9. After the nuclear disaster at Fukushima, the United 
States provided Japan with various means of assistance to help contain 
the damage, dispose of radioactive waste, and remediate the area. And 
in the years since, we have continued to work with Japan on ways to 
promote methods of energy production that do not carry the risk of 
polluting our air, land, or oceans. Given the increased emphasis on 
clean energy following the Fukushima disaster, how will you prioritize 
clean energy cooperation with our Japanese allies and ensure that U.S. 
exporters and innovators in the industry take full advantage of the 
related commercial opportunities?

    Answer. U.S.-Japan cooperation on clean energy is wide-ranging and, 
if confirmed, it will continue to be a priority of mine. The initiation 
of U.S. LNG exports to Japan has created a significant new link between 
our counties in the energy sector. I support increasing energy exports, 
to include clean energy solutions, to Japan and see energy cooperation 
as economically and strategically advantageous. I also welcome, Prime 
Minister Abe's efforts to restart Japan's nuclear reactors on a safe 
and sustainable basis, and as Ambassador I would seek ways to assist 
this. Energy has also been identified as a focus area for cooperation 
under the recently launched bilateral economic dialogue.

    Question 10. What is the appropriate role for the Japanese 
Government to play in addressing gender issues in the workplace? If 
confirmed, do you plan to support this campaign, known as 
``womenomics''?

    Answer. Women's issues have long been an area of interest and 
effort for me. The United States and Japan have cooperated in promoting 
women's economic empowerment in our two countries and beyond. We have 
supported Tokyo's annual World Assembly for Women (WAW), sending 
substantial U.S. delegations, both from Washington and from our Embassy 
in Tokyo. The U.S. Government also welcomed Japan's identification of 
women's empowerment as a priority during its G-7 chairmanship year in 
2016. Through the Asia Pacific Economic Forum, moreover, our two 
countries are actively elevating the role of women in the economy. If 
confirmed, I would continue to support healthy cooperation in this area 
and look for new opportunities.
    I have seen the impact of women's economic empowerment in Japan on 
a first-hand basis. During my time with the Boston Consulting Group in 
Tokyo, more than 20 years ago, we put together a focused program to 
help Western companies recruit Japanese women. It comes as no surprise 
to me that women are adding a great deal of value to Japan's economy. 
We know that even greater potential exists with women's sustained 
participation in the workforce, in leadership positions, and in the 
science, technology, engineering, and mathematics (STEM) fields. 
Government efforts to raise awareness of the challenges women face in 
the workplace, together with continued private-sector coordination, 
should enable more women to enter, remain, and advance in the 
workforce.

    Question 11. Prime Minister Abe has pursued a closer relationship 
with Russia, including efforts to resolve a longstanding territorial 
dispute over four islands north of Hokkaido in the Kuril Chain (known 
in Japan as the Northern Territories) and to conclude a peace treaty 
from World War II. Do you support these efforts at reconciliation with 
Russia? Is it in the U.S. strategic interest for Japan and Russia to 
develop a closer relationship?

    Answer. Japan opposes Russia's attempted annexation and occupation 
of Crimea and its acts of aggression in eastern Ukraine. Together with 
the United States, European Union, and the G-7, Japan has taken the 
position of maintaining sanctions against Russia until it implements 
the Minsk agreements in full. Japan also has its own bilateral concerns 
with Russia and its own geostrategic concerns in the region. As PM 
Abe's Government attempts to achieve progress with Russia on the 
longstanding Northern Territories dispute, I will make it a priority to 
ensure that U.S. and Japanese policies toward Russia remain closely 
coordinated.

    Question 12. The Trans-Pacific Partnership would have set regional 
ground rules on issues such as intellectual property, currency 
manipulation, and labor and environmental standards, and would have 
resulted in increased market access for American firms in Japan. 
Without TPP, what avenues will you use to engage with your Japanese 
counterparts on these issues, and how soon can we expect results?

    Answer. If confirmed, I would seek to advance the U.S.-Japan 
Economic Dialogue recently launched by Vice President Pence as a 
vehicle to strengthen the overall bilateral framework of our economic 
relations, covering trade, macroeconomic, and sectoral issues. I will 
support efforts by the administration to seek freer and fairer trade 
with Japan.

    Question 13. Is the administration's position that it still intends 
to seek bilateral deals to replace the TPP?

    Answer. The administration's overall goal is to advance free and 
fair trade and investment that promotes U.S. economic and job growth. 
The President and senior officials believe this goal can be more 
effectively achieved through a bilateral approach, and, if confirmed, I 
will engage with Japan to achieve this important outcome. I defer to 
administration officials on whether or not that would include 
negotiations on a bilateral free trade agreement.

    Question 14. Have any countries agreed to engage with the US 
bilaterally?

    Answer. I defer to current administration officials on the status 
of bilateral trade discussions with foreign governments.

    Question 15. What is Japan's current position on this issue?

    Answer. I defer to current administration officials on the status 
of Japan's current position on this issue.
    I will note that our two countries share many economic interests, 
as seen over many decades of extensive trade and two-way investment. 
Our new U.S.-Japan Economic Dialogue under the leadership of Vice 
President Pence and Deputy Prime Minister Aso should provide the 
critical groundwork to strengthen the bilateral framework for trade and 
investment and to promote our joint prosperity.
    As President Trump and Prime Minister Abe said during their 
February Summit, we ``share an interest in sustaining a strong global 
economy, ensuring financial stability, and growing job opportunities.''

    Question 16. Since the TPP agreement was premised on cross-cutting 
concessions among the twelve parties, how can the US convince 
individual countries to return to the table for a series of smaller 
deals, without the regional rule-setting that was the hallmark of the 
TPP?

    Answer. If confirmed, I will work with Secretary Tillerson and 
other U.S. agencies to support the President's commitment to expand 
economic opportunities for American businesses in Japan and throughout 
the region, including by addressing candidly any issues that present 
obstacles to that objective. I would look to identify and build upon 
areas of common ground that would benefit the United States in 
advancing our economic relationship.

    Question 17. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the executive branch?

    Answer. I will comply with the law regarding all such issues and 
will provide information to Congress when appropriate.

    Question 18. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do at the Mission to 
promote, mentor and support your staff that come from diverse 
backgrounds and underrepresented groups in the Foreign and Civil 
Service? What steps will you take to ensure each of the supervisors at 
the Embassy are fostering an environment that's diverse and inclusive?

    Answer. I agree that well-managed diverse teams perform better, and 
I understand the Department of State is committed to recruiting and 
retaining a diverse, talented workforce that advances U.S. values, 
interests and goals around the world.
    If confirmed, I will seek through the Foreign Service assignments 
process to promote the recruitment of under-represented groups for 
Mission Japan. In addition, I will take my role as a leader and mentor 
of all employees seriously. I will ensure that all employees are aware, 
understand, and abide by Equal Employment Opportunity (EEO) principles 
and that managers receive mandatory EEO training. This is an important 
issue, and I look forward to working with you and the committee to 
advance this shared objective.

    Question 19. In 2016, Japan adopted The Convention on the Civil 
Aspects of International Child Abduction. This international treaty, 
which the U.S. has also ratified, provides a civil mechanism to 
promptly return children who have been taken out of the country of 
habitual residence in violation of custodial rights. It is my hope that 
through this mechanism we will be able to quickly resolve international 
abduction cases between the United States and Japan. However, there are 
more than 30 pre-Convention abduction cases that remain unresolved. If 
confirmed, will you assure me that you will seek to engage with your 
Japanese counterparts to resolve these pre-Convention cases?

    Answer. Yes. If confirmed as Ambassador, I will seek the Japanese 
Government's most robust efforts to resolve pre-Convention cases. The 
resolution of these, and all parental child abduction cases, will be a 
top priority.

    Question 20. As Commissioner of Economic and Community Development 
from 2011 to 2015, you oversaw Tennessee's Department of Economic and 
Community Development, which administers the state-funded TNInvestco 
program. Did you play a role in the establishment of TNInvestco?

    Answer. I did not play a role in the establishment of this program. 
It was established by statute, designed and implemented under the 
administration of then-Governor Phil Bredesen (D) in 2009.

    Question 21. What were the goals of TNInvestco, and were those 
goals met?

    Answer. The program was designed to increase the flow of capital to 
companies in Tennessee in the early stages of their development. Since 
the program's implementation, Tennessee has moved up the league tables 
in early stage risk capital deployment from #45 in 2010 to #22 in 2016, 
according to the Milken Institute State Technology and Science Index.

    Question 22. What was your role in providing oversight and 
monitoring of TNInvestco?

    Answer. While I had responsibility for the Department of Economic 
and Community Development, all day-to-day responsibility for oversight 
and monitoring of the TNInvestco program was delegated to department 
officials. As such, I had no direct role in oversight or monitoring 
this program.

    Question 23. In July of 2016, you took a leave of absence from 
Hagerty Peterson to serve as Director of Presidential Appointments for 
the 2016 Trump Presidential Transition Team. This position involved 
oversight on the first group of prominent board, commission, Cabinet 
and other appointments that President-elect Trump would make. What role 
did you play in the decision to bring on Lt. Gen. Michael Flynn to 
serve as National Security Advisor?

    Answer. I served prior to the President's inauguration as a 
volunteer in the role of Director of Presidential Appointments for the 
transition team, which was a separate legal entity from the campaign. 
My team and I were primarily focused on candidates for Cabinet 
positions. The selection of members of the White House staff was 
generally handled separately.
    In light of the confidentiality interests that attach to executive 
branch decision-making, I am unable to answer this question further.

    Question 24. Were you aware before President Trump's inauguration 
that Lt. Gen. Flynn was under federal investigation for secretly 
working as a paid lobbyist for Turkey during the 2016 presidential 
campaign, or the nature and extent of his contacts and financial 
arrangements with Russia?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision making, I am unable to answer this question.

    Question 25. What role did you play in the decision to bring on 
Sebastian Gorka as deputy assistant to the president?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making, I am unable to answer this question.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to William F. Hagerty by Senator Edward J. Markey

    Question 1. Do you support the renegotiation of our civil nuclear 
cooperation agreement with Japan to put greater constraints on Japanese 
reprocessing of U.S.-obligated spent fuel?

    Answer. The United States has a long history of productive 
cooperation with Japan on nuclear safety, nuclear security and 
nonproliferation. If confirmed, I am committed to maintaining this 
cooperation. The United States has a longstanding policy that has 
generally sought to prevent the spread of enrichment and reprocessing 
technologies to states not already possessing them.

    Question 2. If confirmed, will you regularly convey to Japanese 
leaders that reprocessing is dangerous for Japan and dangerous for 
global nonproliferation?

    Answer. It is my understanding that since reprocessing leads to 
separated plutonium and, in principle, separated plutonium can be used 
to make nuclear weapons, generally less reprocessing in the world is 
better than more. If confirmed, I will indeed share this concern in the 
course of regular discussions on such matters with Japanese leaders.

    Question 3. If confirmed, will you make clear to Japan that there 
are safer and more economical alternatives to disposing of spent-fuel?

    Answer. I understand that the United States has concluded that 
reprocessing in the United States is not desirable at present, neither 
from the perspective of energy security, nor that of commercial 
competitiveness. Rather, U.S. industry has been able to rely on interim 
dry storage of spent fuel. If confirmed, I will share the views of the 
United States and our conclusions with Japan.


    Question 4. If confirmed, will you work with the Secretary of State 
and with the U.S. Ambassadors in China and South Korea to coordinate a 
multilateral ``pause'' on commercial spent-fuel reprocessing by Japan, 
China, and South Korea?

    Answer. I understand that the United States has in recent years 
maintained ongoing dialogues with Japan, China, and South Korea in the 
interest of limiting the spread of fissile materials and their 
production. I support the continuation of these dialogues.

    Question 5. If confirmed as ambassador, will you work to 
incorporate Japanese input into U.S. diplomatic strategy, and to gain 
Japan's support for direct negotiations between the United States and 
North Korea aimed at securing the peaceful denuclearization of the 
Korean peninsula?

    Answer. The administration is in close coordination with Japan on 
our approach to the DPRK. If confirmed, I will work with Japan to align 
our diplomatic, military, and economic response to North Korea, with 
the goal of pressuring North Korea to abandon its UN-proscribed 
nuclear, ballistic missile, and proliferation programs. I believe that 
Japan is in agreement with the administration's current policy 
approach--North Korea must take concrete steps to reduce the threat 
that its unlawful weapons programs pose to the United States and our 
allies, including Japan, before we can even consider talks.

    Question 6. If confirmed as Ambassador, how will you work with 
Japan to reduce whaling in accordance with international standards?

    Answer. If confirmed as Ambassador, I would continue to support the 
moratorium on commercial whaling adopted by the International Whaling 
Commission as a necessary measure for the conservation of large whales. 
I would welcome the opportunity to discuss with Japan and other 
interested governments ways to improve the International Whaling 
Commission and seek ways to cooperate on initiatives to conserve and 
recover the world's large whales.

    Question 7. If confirmed, what will you do to assure Japanese 
leaders that the United States will protect any sensitive information 
they provide to us?

    Answer. If confirmed, I will work closely with the U.S. 
intelligence community to ensure that our Japanese partners can be 
confident that the United States will safeguard their sensitive 
information. I will continue to emphasize the long-standing and close 
working relationship and trust developed between our military and 
intelligence communities, and will consult at the highest levels to 
ensure that sensitive information critical to the security of both of 
our countries is protected.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to William F. Hagerty by Senator Cory Booker

Extent of Mr. Hagerty's knowledge of Flynn's Russian and Turkish 
        dealings a senior transition official responsible for personnel
    Question 1. After Vice President Elect Pence received the November 
18, 2016 letter from Congressman Cummings regarding Flynn's lobbying 
for Turkish interests and paid appearance with Russian President 
Vladimir Putin, were you made aware of this letter?

    Answer. I served prior to the President's Inauguration as a 
volunteer in the role of Director of Presidential Appointments for the 
transition team, which was a separate legal entity from the campaign. 
My team and I were primarily focused on candidates for Cabinet 
positions.
    In light of the confidentiality interests that attach to executive 
branch decision-making and communications with the Vice President-
elect, I am unable to answer this question.

    Question 2. Did you ever discuss Ranking Member Cummings November 
18, 2016 letter to Vice President Pence with Vice President Pence? If 
so, when? Please provide details on the nature of those conversations 
if they took place.

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making and communications with the Vice 
President-elect, I am unable to answer this question.

    Question 3. Were you ever in contact with Vice President elect 
Pence, transition official Marshall Billingslea or other transition 
officials about Flynn's work on behalf of Turkey or Russian payments?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making and communications with the Vice 
President-elect, I am unable to answer this question.

    Question 4. Did you ever speak to transition official Marshall 
Billingslea about his meeting with Flynn in late November 2016 where 
Billingslea expressed concern to Flynn about his contacts with Russian 
ambassador Sergey Kislyak?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making, I am unable to answer this question.

    Question 5. Did you participate in any transition team meetings 
with Obama officials regarding Flynn?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making, I am unable to answer this question.

    Question 6. Were you aware of Flynn's conversation with Russian 
ambassador Sergey Kislyak on December 29, 2016 at any point before Vice 
President Pence's interview with CBS' ``Face the nation' on January 15, 
2017? If you were aware of Flynn's conversation with the Russian 
ambassador prior to Pence's interview, did you discuss Flynn's contact 
with Kislyak with Pence or any other senior transition officials?

    Answer. In light of the confidentiality interests that attach to 
executive branch decision-making and communications with the Vice 
President, I am unable to answer this question.

TN InvesCo Fund

    Question 7. What was your role in the establishment of TN InvesCo 
Fund?

    Answer. I did not play a role in the establishment of this program. 
It was established by statute, designed and implemented under the 
administration of then-Governor Phil Bredesen (D) in 2009.

    Question 8. Were you involved in the legislation that created the 
TN InvestCo fund?

    Answer. No, the legislation that created the TN InvestCo fund was 
passed, signed into law and implemented in 2009, prior to my government 
service, which was from 2011-2015.
    Question 9. Did your private investment fund--Hagerty Peterson--
benefit financially from the TN InvestCo Fund?

    Answer. No. In 2009, I became a limited partner with a minority 
stake in one of the ten funds that were selected under the TNInvestco 
program. That fund was separate from Hagerty Peterson and made no 
investments in any Hagerty Peterson portfolio companies. Nor did any of 
the other funds selected under the TNInvestco program. Prior to my 
entering government service in 2011, Hagerty Peterson became inactive. 
When I entered government in 2011, my interests in the fund were placed 
into a blind trust. In addition, all responsibility for oversight of 
the TNInvestco program was delegated to other officials, in 
consultation with the Governor's counsel.

    Question 10. Did the companies that received money through InvestCo 
have any oversight, reporting, or other monitoring and evaluation 
protocols?

    Answer. The reporting requirements for the companies that received 
funds were specified by the legislation and had to do with the location 
of the companies, the capital invested and associated employment. All 
day-to-day responsibility for oversight and monitoring of the 
TNInvestco program was delegated to department officials. As such, I 
had no direct role in oversight or monitoring this program.

    Question 11. What were the goals of the InvestCo Fund? Were those 
goals met? Was there any reported accounting of the activities that 
found this program created jobs or contributed to economic development 
for TN?

    Answer. The program was designed to increase the flow of capital to 
companies in Tennessee in the early stages of their development. Since 
the program's implementation, Tennessee has moved up the league tables 
in early stage risk capital deployment from #45 in 2010 to #22 in 2016, 
according to the Milken Institute State Technology and Science Index.

        Response to Follow-up Question for the Record Submitted 
              to William F. Hagerty by Senator Cory Booker

Extent of Mr. Hagerty's knowledge of former National Security Advisor 
        Michael Flynn's Russian and Turkish dealings as a senior 
        transition official responsible for personnel.
    Question 1. Thank you for your response to the questions for the 
record I submitted on May 18, 2017. In reference to your knowledge of a 
November 18, 2016 letter from Congressman Cummings regarding Michael 
Flynn's lobbying on behalf of Turkey and a paid appearance with Russian 
President Vladimir Putin, you replied that you were unable to answer 
the question, ``in light of the confidentiality interests that attach 
to executive branch decision-making and communications with the Vice 
President-elect.''
    You also cited confidentiality interests that attach to executive 
branch decision making as the reason you opted not to answer my 
questions about discussions you may have had with Vice President-elect 
Pence about Congressman Cummings' letter as well as any discussions you 
may have had with other transition officials regarding former National 
Security Advisor Michael Flynn's communications and relationships with 
Russia and Turkey. All of the discussions or other information that I 
asked you about took place prior to President Trump and Vice President 
Pence taking office on January 20, 2017.
    Accordingly, below are a few follow-up questions to clarify the 
reasons why you are choosing not to answer my initial questions for the 
record.

   Please identify the legally recognized privilege (or privileges) 
        that you are asserting as the basis for your refusal to answer 
        the questions regarding your contacts with Vice President-elect 
        Pence?
   If you are citing executive privilege (or any other privilege held 
        by the chief executive or federal agencies), please explain the 
        legal basis for claiming that privilege as a private citizen 
        who was volunteering on a transition team prior to 
        inauguration.
   If you are not citing executive privilege, please specify in detail 
        the legal theory upon which you are basing your refusal to 
        answer these questions.
   If upon reflection and legal review, you recognize that you do not 
        have a sound legal theory upon which to rely, please provide 
        full answers to the aforementioned questions for the record 
        from my May 18 submission.

    Answer. I served in the role of Director of Presidential 
Appointments for the transition team, which was a separate legal entity 
from the campaign. My team and I were primarily focused on candidates 
for Cabinet positions. The selection of members of the White House 
staff was generally handled separately. As noted in my responses to 
your earlier questions, I was unable to respond in light of the 
confidentiality interests that attach to executive branch decision-
making. Given those interests, I am unable to respond further to your 
follow-up questions.



                               __________





                               NOMINATION

                              ----------                              


                        THURSDAY, JUNE 15, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:14 a.m. in 
Room 419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Johnson, 
Gardner, Young, Isakson, Cardin, Menendez, Shaheen, Coons, 
Murphy, Markey, and Booker.
    Also Present: Senator Baldwin.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    And as a courtesy to three very distinguished guests this 
morning, Senator Cardin and I will defer our opening comments. 
We know that each of you have important business to deal with.
    We are honored to have Senator Johnson and Senator Baldwin 
introduce our outstanding nominee for this position, and we are 
especially honored to have the Speaker of the House of 
Representatives here, who I thought yesterday delivered some 
well-needed, unifying comments in a time of need, and I thank 
him for that and thank him for his leadership.
    And with that, knowing that you in particular have a lot of 
duties to deal with, Speaker Ryan, why do you not begin the 
process.
    Senator Cardin. And let me just join our chairman in 
thanking the Speaker for his comments yesterday. You spoke for 
all of us, and it was an incredibly difficult time, and we are 
very proud of your comments. Thank you.

                 STATEMENT OF HON. PAUL RYAN, 
                U.S. CONGRESSMAN FROM WISCONSIN

    Speaker Ryan. Thank you. Thank you for that, and thank you 
for your prayers. We have friends and colleagues in surgery 
right now, so we need our continual prayers. And I felt like we 
can speak for all of our colleagues in saying that this is a 
time for us to unify, and it is a time for us to reflect and I 
appreciate that.
    Let me on a lighter note thank you for having me here this 
morning. It is not often or ever a Speaker comes to the Senate, 
so thanks for letting me come over here----
    [Laughter.]
    Speaker Ryan [continuing]. To what we call the high-rent 
district.
    The Chairman. There is good reason for that.
    Speaker Ryan. That is right. That is right. Yes, I have not 
been over here in a long time.
    I appreciate the opportunity to say a few words about a 
good, close, old friend. Mark Green needs no introduction to 
this panel. He has long been a forceful advocate for American 
leadership in global development. He undoubtedly possesses the 
expertise and the experience. He is the perfect person for this 
job to lead USAID and to fulfill its mission.
    He is going to deliver the utmost transparency and 
accountability for taxpayers. The President certainly made the 
best possible choice.
    I have known Mark Green for 20 years. We were both elected 
together in the same election in 1998, along with Tammy, to the 
House. Our offices were next door to each other. Our staffs 
were closely related and integrated. We went to Bible study 
together every single week. We rose through the ranks in 
Wisconsin politics together.
    It was clear to me back in those days that Mark Green had a 
higher calling. His heart was always set on making a difference 
for people in need. You could see it when he talked about his 
time in Africa when he and Sue lived in a tent and were 
missionaries and working in Peace Corps work. You could see it 
when his choice to get on committee was the Foreign Affairs 
Committee because he wanted to work on things like PEPFAR and 
the Millennium Challenge Account law. He was so passionate 
about those issues. I was over working on budget spreadsheets; 
Mark Green was working on Millennium and PEPFAR and these 
issues.
    You could see it in just the passion that he has for 
advocating for the people who cannot advocate for themselves. 
This is his north star. This is his life's work. This is what 
he does. And so the endorsement I have for Mark Green is not 
merely personal; it is the fact that you could not have a 
better person to lead this kind of an organization.
    The work done by USAID, funded and overseen by this 
Congress, is critical to advancing security and democracy 
around the world, even more at this time at the moment we are 
in than ever before, I would argue.
    I think Mark understands as well as anyone that the 
strength and clarity of America's leadership is vital to our 
interests and our overall global security and stability. We are 
going to be very fortunate to have Mark Green as our voice and 
representative to the developing world.
    As administrator of USAID, he will do what he always has 
done. He has an uncanny ability to bring people together of 
differing views, of differing backgrounds, and to get them to 
work on the same page. He is a person who knows what it takes 
to improve and transform the lives of others.
    And so I just could not give a better unqualified 
endorsement of a finer person to lead a very important agency 
at a very important time than Mark Green, so thank you for 
having me. I appreciate it.
    The Chairman. Well, thank you. And thank you for being 
here. And for what it is worth, my sense is your very sincere 
comments reflect the feelings of I think most people here who 
have spent time with him, and I thank you for that. And we will 
not be offended if you go back to the superior side of the 
building and begin your work. So, thank you so much for being 
here.
    Senator Johnson, with great leadership on this committee, 
we are thankful that you are here to do the same thing and look 
forward to your comments.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Well, Chairman Corker, Ranking Member 
Cardin, first of all, I want to join you in thanking the 
Speaker for his unifying comments yesterday as well and a day 
of just beyond disturbing event, so, you know, thank you, Mr. 
Speaker.
    And I am also honored to join the Speaker introducing 
former Ambassador and Congressman Mark Green as the nominee to 
be the next administrator of the U.S. Agency for International 
Development.
    We are at an important juncture for the future of U.S. 
foreign assistance, and Mark's exemplary character and unique 
qualifications make him an inspired choice to lead USAID into 
the future.
    Prior to serving in the State Assembly and in Congress 
representing Wisconsin's 8th District, Mark taught English in 
Kenya as a volunteer with WorldTeach. As a Member of Congress, 
he was instrumental in the passage of PEPFAR and the Millennium 
Challenge Corporation, which has helped save millions of lives 
and spurred global development.
    After serving in Congress, Mark became U.S. Ambassador to 
Tanzania and served as executive director of Malaria No More 
and is a board member of Millennium Challenge Corporation. He 
did this at great personal expense, having contracted both 
malaria and typhoid while serving others.
    Today, he serves as a senior director of the U.S. Global 
Leadership Coalition and as President of the International 
Republican Institute, a nonprofit organization that works to 
bring democracy and freedom to all corners of the world.
    Mark has repeatedly set his personal well-being aside in 
order to make the world a better place for countless others. He 
understands that compassion for those in need is an essential 
and galvanizing component of USAID's mission, and he also 
understands that foreign assistance is a strategic investment, 
which must be integrated with national strategy at the 
policymaking level. Most of all, Mark is a respected servant-
leader with high moral character who will do an outstanding job 
of representing America's compassion and decency throughout the 
world. I have no doubt that he will lead USAID with dedication 
and distinction.
    I strongly endorse Mark's nomination and urge my colleagues 
to support him as well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so much.
    Senator Baldwin, I have not had the opportunity to serve on 
a committee with you, but I thank you so much for what you 
bring to the United States Senate and for being here to show 
the strong bipartisan support for this nominee.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Absolutely. Thank you, Mr. Chairman.
    Thank you, Ranking Member Cardin and members of the 
committee.
    I, too, want to thank Speaker Ryan for his comments 
yesterday and today. It is time for more than just moments of 
unity.
    And I am proud to be sitting here with my colleagues in 
unity behind the nomination of Mark Green to be the leader of 
the United States Agency for International Development.
    I have known Mark--I hate to say this--for a quarter-
century. Not only, as Speaker Ryan said, did we have the 
pleasure of being elected, all three of us, to the House of 
Representatives in the same year, but Mark Green and I were 
elected to the Wisconsin State Assembly together in 1992 and 
have had an opportunity to serve together and work across party 
lines for the people of Wisconsin for many years. I also had 
the pleasure of serving with Mark on the House Judiciary 
Committee for many years.
    I applaud the President's nomination of Mark Green to serve 
America in this position. He not only has the exemplary 
experience and qualifications to take on this responsibility; 
as you have heard, he has the deep personal passion and 
commitment to do this job, as shown through years of work in 
advancing our common good on the international stage.
    As we all confront the reality of an increasingly 
interconnected world that presents both challenges and 
opportunities, I have no doubt that Mark Green understands that 
America is always best served when we lead and reach out to the 
rest of the world, not turn inward.
    Senator Johnson, Speaker Ryan and I know and agree Mark 
Green is the right person for this mission, and I hope that our 
joint support sends a very strong message to this committee and 
the entire United States Senate that he is the right choice for 
the USAID administrator. I am hopeful that this committee and 
the full Senate will confirm Mark's nomination so that he can 
begin the work that he has been committed to do throughout his 
entire life, serving and making a difference in people's lives.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much for those comments and 
all three of you for being here. And what you have said, in 
many ways I feel like we could adjourn the meeting right now.
    [Laughter.]
    The Chairman. But I would say to each of you, please, 
again, feel free to leave. As a matter of fact, I am going to 
pause for a moment so it will not be awkward so that you can do 
so appropriately. Thank you so much for being here and for your 
role in making our country what it is.
    Ambassador Green, thank you so much for joining us today. 
This is not the first time we know that you have testified 
before this committee, and you are certainly no stranger to the 
halls of the Capitol. You have a long and diverse history in 
both public service and international development, and I am 
very pleased with your nomination to be the next USAID 
administrator and know that you will bring significant 
expertise and understanding to this new role.
    With a budget of over $25 billion, USAID represents about 
46 percent of our international affairs activities but just 
over half of 1 percent of the total U.S. Federal budget. USAID 
has an important mission, and many of its programs have 
stabilizing effects in regions of the world where we have 
national security interests.
    And while I know there has been much discussion about the 
President's budget request and, as I have said before, it is 
the role of Congress to fund the Federal Government, not the 
administration. So instead of focusing on that, I think we 
would be better served to shift our focus from what can be done 
towards what should be done. Instead of what can be done, we 
should focus away from what can be done towards what should be 
done.
    I am reminded of something Secretary Tillerson said at 
Tuesday's budget hearing: ``Funding does not equal results. 
Show me results, and I will tell you your commitment.'' And I 
just want to say I know that that is something that you are 
very focused on, and that is why we are all so proud that you 
are our nominee.
    That is why I am encouraged by the statement in your 
testimony that you, as USAID administrator, would set a higher 
standard for accountability and achieving results. I agree with 
you that we can create significant change by focusing on 
economic growth in a developing world. We should look for 
appropriate ways to leverage shared private and public sector 
interests and eliminating constraints to trade and investment, 
creating business environments that will attract investment in 
the developing world should be our priority.
    This commitment has a long history of bipartisanship, which 
we are going to demonstrate in a really sound way today on the 
Floor when it comes to oversight of our foreign assistance with 
the passage of legislation enacting important reforms such as 
the Global Food Security Act, Electrify Africa, and Water for 
the World Act. Should you be confirmed, I am confident that we 
would find a willing partner in our oversight and reform 
efforts.
    To that end, I want to highlight today one of the most 
impactful aid reforms that is achievable during this Congress, 
modernizing our food aid. Food for Peace has been operating 
under decades-old requirements to use 100 percent U.S. farm 
commodities, 50 percent of which must be shipped on overpriced, 
uncompetitive U.S.-flagged vessels. If we could modernize the 
program with increased flexibility in food aid delivery while 
still maintaining a significant role for the U.S. farmer who 
cares deeply, deeply about people in need, we could feed 5 to 8 
million more people a day with the exact same funding. I know 
you are very aware of that, and I really feel the time is here 
for us to address that issue.
    Food for Peace is authorized in the farm bill that is being 
reauthorized next year, and if you are confirmed as 
administrator, I would seek your commitment to working with us 
and the Ag Committees and others to modernize the program for 
the 21st century.
    Thank you for coming here today. I know you have important 
family members who we were honored to meet back behind the 
podium, but we look forward to you introducing them. We look 
forward to your testimony. We look forward to you serving in 
this important role.
    And with that, let me turn to my friend, the ranking 
member, Senator Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you very much for 
convening this hearing. And I will call you Congressman Green 
because I think being in Congress is more important than being 
an ambassador, but we can argue that issue later.
    But, Ambassador Green, thank you for your willingness to 
serve your country at this critical moment and one of the most 
important national security posts that we have in America. And 
I thank your family because this clearly is going to be a 
family sacrifice. You know that, your family knows that, and we 
thank them for joining you in this commitment for public 
service.
    I will acknowledge that I am not objective on your 
nomination. I have known you for a long time. I am very 
impressed by what you did when you were in the House of 
Representatives. I know your service that we saw in the 
Ambassador in Tanzania, what you did with Millennium Challenge 
Corporation and the NGO community. You have incredible 
endorsements from stakeholders who I deeply respect and the 
importance of the mission of USAID. And in our conversations, 
you were extremely passionate about the values that I think are 
critically important for America's security. So, you come to 
this day with a strong record and passion for this position, 
and I join the chairman in believing that there will be a very 
smooth confirmation process for you to assume the office as 
director of USAID.
    I say that recognizing that you have accepted a position 
during a very challenging moment. When we take a look at the 
conflicts globally and what these conflicts have meant as far 
as humanitarian crises in so many spots in the world where 
voids have been created, where we see extremist groups and 
terrorist organizations that are able to take advantage of that 
insecurity, that is your commitment to try to deal with both 
the humanitarian problem and to avoid the voids that allow 
terrorist groups and oppressive regimes to be able to function.
    You also understand the importance of United States 
leadership. It has been U.S. leadership that has provided the 
world direction, that deals with issues such as health 
epidemics that we have dealt with to dealing with good 
governance, anticorruption, and the creation and support of 
democratic institutions.
    And we are going to see that. The chairman alluded to that. 
You are going to see that leadership today in the United States 
Senate at 11 o'clock when we start voting on a bill that 
expresses not only our commitment as a Congress to take on the 
aggression of Russia and Iran but also our commitment to 
support democratic institutions and to have appropriate 
congressional review of executive actions so we can speak with 
a stronger united voice in this country. That to me is exactly 
what we need to do for our national security.
    But I need to point out that there are some self-inflicted 
challenges that we are imposing on ourselves. And we need to 
recognize that because we need to overcome these challenges. We 
have budget cuts that are being recommended that would make it 
virtually impossible for USAID to carry out the missions that 
we expect you to be able to carry out.
    The budget would withdraw U.S. aid missions from 37 
countries. That presents a very, very--if you do not have 
people on the ground, it is very difficult to be able to 
understand the circumstances. Having been on the ground, you 
understand that.
    The OMB directive reducing personnel could very well 
cripple the ability of carrying out missions. How the State 
Department reorganizes--and we had a hearing Tuesday with 
Secretary Tillerson. The jury is out on that. I agree with the 
chairman. Let us wait to see. We can always do things better. 
But I know how important it is for USAID's independence within 
the State Department family, and that is an issue that we are 
going to be looking to you, so this hearing is an opportunity 
for you to present your vision as how you see USAID fitting 
into our national security and to American values.
    I also will ask you to do two other things. One, assure us 
that you are going to be an effective voice within the Trump 
administration as it relates to these key decisions that are 
being made, recognizing that development assistance is 
critically important to our national security. How do you weigh 
in effectively within the Trump administration to carry out 
that commitment?
    And the second and equally as important, you have Democrats 
and Republicans on this committee that are dedicated to working 
with you in a bipartisan manner. The chairman mentioned some of 
these programs, and historically, we are proud of PEPFAR and 
how that changed the world landscape on HIV/AIDS. We know that 
what with did with Power Africa, what we have done with Feed 
the Future, what we have done with the water, so many different 
issues we have worked together as a team in order to advance 
U.S. leadership in national security matters.
    There are many areas that we want to work together on. I 
will just mention one. We are working on using the successful 
model of the trafficking in persons, our commitment to end 
modern-day slavery, which is a commitment which is continuing, 
and we will need your help in order to make sure we continue 
down that path because there are still way too many people 
being trafficked around the world, but to use that model to 
fight corruption. And I want to work with you and I want to 
work with Secretary Tillerson and members of the committee to 
figure out how we could be more effective in our international 
leadership to stop the rise of corruption in so many countries. 
And today, we are taking a major step in that direction against 
Russia, but we need to have an overall strategy on how to do 
that.
    So today gives you a chance to go over with this committee, 
the committee wants to work with you, your vision of USAID, how 
we can work together to promote your mission and how we can be 
effective in regards to the Trump administration so that we 
could have more unity in this country, recognizing how 
development assistance is critically important to our national 
security. Thank you.
    Senator Risch. [Presiding] Thank you, Senator Cardin.
    Mr. Green, I am sure Senator Corker has apologized to you. 
He has an important matter on the Floor he has to attend to. 
But he did not leave you to chance. I grew up in Wisconsin. I 
was born in Wisconsin. I received part of my higher education 
at the University of Wisconsin. Both sides of my family 
immigrated to Wisconsin. I see you are a latecomer, having been 
born in Massachusetts, but I am going to overlook that.
    [Laughter.]
    Senator Risch. So with that, the floor is yours and we will 
be glad to hear from you.
    Senator Johnson. Just a quick interruption, though. You 
forgot to mention you are a Green Bay Packer fan.
    Senator Risch. I am a Green Bay Packer fan.
    Senator Johnson. As is Ambassador Green.
    Senator Risch. Thank you. The floor is yours.

      STATEMENT OF MARK ANDREW GREEN OF WISCONSIN, TO BE 
  ADMINISTRATOR OF THE UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ambassador Green. Thank you. Thank you, Mr. Chairman and 
Ranking Member, and thanks to the members of the committee. I 
am honored to come before you as President Trump's nominee for 
USAID administrator, and I am truly grateful to both the 
President and to Secretary Tillerson for their trust and 
support and confidence.
    You heard from the introducers. I am grateful to them, to 
you for the friendship and the kind words. Speaker Ryan, Paul, 
he and I do go back a long ways. As we were noting before we 
came out, Paul famously would walk back and forth from votes 
reading, you know, numbers tables from ways and means, and I 
was the guy that would talk about Africa. I think we were both 
pretty boring people at the time.
    I want to thank my family for their unwavering support, my 
parents, born South African and British but now proud Americans 
of more than 20 years; my wife Susan, who is here today, and 
our three children Anna and Alex, who are also here; and 
Rachel, who is back in Minnesota where she teaches.
    Mr. Chairman, 30 years ago this August, Sue and I began a 
journey as volunteer teachers in Kenya. That journey has taken 
me to five continents walking hospital wards in Tanzania, 
observing elections in Jordan and Burma, talking with young 
political leaders in Europe and Eurasia, meeting with community 
leaders in Central and South America and so much more. Back 
here, I have had the honor of helping to craft PEPFAR and MCC 
and working with a number of truly great organizations.
    Along the way, I have learned a lot about what is working 
in development and what can work even better. But more than 
anything else, this journey has driven home for me that America 
and our development tools can be an irreplaceable force for 
good in this world.
    Now, Mr. Chairman and members of the committee, you have 
asked me for my priorities for USAID. I can best sum them up 
like this: Every President in modern memory has suggested that 
the purpose of foreign assistance should be ending its need to 
exist. If confirmed, I will make that our organizing principle.
    And that means three things. First, I will work to make 
sure that our programs respect our taxpayers. Our foreign 
assistance funds come from hardworking families all across this 
great country. I think we all realize that we have to use these 
dollars as efficiently and as effectively as we possibly can. 
If confirmed, I will focus our limited resources on what is 
working and end what is not. I will scrutinize every program to 
ensure that we are maximizing value, minimizing waste, and 
always advancing America's interests.
    Second, I will make clear to our partner countries that our 
assistance is not open-ended or inevitable or, most important, 
a substitute for what they must take on themselves. Every 
program should look forward to the day when it can end. And I 
will ask our missions to evaluate how each dollar moves a 
country closer to that day.
    To be clear, USAID will not walk away from our humanitarian 
commitments and will always be there when disaster strikes 
because that is who we are as Americans. But I believe the 
truest sense of compassion comes from helping people and 
countries to take care of themselves and to craft their own 
bright future.
    Finally, third, I will work to reshape our assistance tools 
and programs to better reflect our evolving relationship with 
the developing world. When USAID was first created some 55 
years ago, about 80 percent of the money flowing from America 
to the developing world came from the Government, ODA, official 
development assistance. Today, that figure is under 10 percent.
    International commerce, remittances, private philanthropy 
are now transformational forces. Added to that, we see new 
technologies emerging each and every day that create marvelous 
new opportunities. All of this suggests we should change our 
approach to supporting development. If confirmed, and working 
with all of you, I will pursue ideas for reforming our policies 
and procedures, rethinking our structure, and retooling how we 
engage with our development partners. I will also work hard to 
strengthen our interagency cooperation because I saw as 
Ambassador to Tanzania how that can be a truly effective force 
multiplier.
    Mr. Chairman, the same passion that carried me to East 
Africa 30 years ago still drives me today. I believe in the 
power of compassion. I believe in the power of development. My 
journey has reminded me over and over again that fostering 
development is hard work, but also, if done right and led well, 
it can not only lift lives and strengthen communities but also 
help America achieve many of her most important strategic 
priorities.
    And so with your support for my confirmation, I commit to 
working with USAID's talented team all around the world to make 
smart choices and take on important work that will lead, I 
believe, to an even stronger, more effective agency in the 
years ahead. Thank you for considering my nomination, and I 
look forward to your questions.
    Thank you, Mr. Chairman.
    [Mr. Green's prepared statement follows:]


                Prepared Statement of Mark Andrew Green

    Chairman Corker, Ranking Member Cardin, members of the committee, I 
am honored to come before you today as the President's nominee to lead 
the U.S. Agency for International Development.
    And I'm grateful to President Trump and Secretary Tillerson for 
their trust and confidence.
    Senator Baldwin, Senator Johnson, Speaker Ryan, thank you for your 
friendship, your years of support, and that gracious introduction.
    To those with whom I consulted in preparing for today, thank you 
for your counsel and guidance.
    I also want to express my personal gratitude to Wade Warren, who 
has done an outstanding job leading the Agency these last months as 
Acting Administrator.
    Finally, but most importantly, I want to thank my family for their 
unwavering support. My parents, born South African and British, but 
proud Americans for twenty plus years.
    My wife, Susan, who is here today, and our three children Rachel, 
Anna and Alex. Thirty years ago this August, Sue and I began a journey 
as volunteer teachers in Kenya. We never could have imagined it would 
bring us to this day and to this great honor.
    Mr. Chairman and members of the committee, should I be confirmed, 
it is lessons from that journey, touching five continents and working 
with countless development leaders, that I will bring to my work at 
USAID.
    While teaching in rural Kenya, I learned how desperate so many 
families are for a taste of the opportunities we as Americans usually 
take for granted. Many of my students walked miles, barefoot and ill-
nourished, to attend class. Never mind that there weren't enough 
textbooks or that during the rainy season holes in our tin roof and 
lack of glass in our windows disrupted lessons. When some of the 
students were sent home for falling behind on school fees, I often 
caught them trying to sneak back INTO my class. Their determination, 
their passion, has never left me.
    Years later, on September 11th, 2001, while serving the good people 
of Northeast Wisconsin in Congress, like you, I learned painfully just 
how small the world had become.
    After 9-11, I was part of the team that crafted key development 
initiatives like the President's Emergency Plan for AIDS Relief 
(PEPFAR) and the Millennium Challenge Corporation (MCC), programs that 
have transformed U.S. development assistance, brought about remarkable 
changes in many parts of the world and taught us lessons that we apply 
to this day.
    Later still, while serving President Bush and the American people 
as our Ambassador to Tanzania, I saw first-hand how those same tools 
actually worked in the field, and what could be done to make them even 
better. I learned additional lessons too numerous to count.
    I saw how important our civil-society partners can be, both faith-
based and secular, in reaching out to people and communities in need. I 
learned how important it was to tackle bureaucracy and prevent turf 
battles, and worked to mobilize every agency and every partner's 
particular capacities and strengths.
    I was so often impressed by the skills and talent of our 
development professionals, particularly those who powered USAID. And 
each day, as I drove to my office in Dar es Salaam, past the memorial 
to those who lost their lives in the 1998 Embassy bombing, I was 
reminded both that there are forces out there seeking to harm us, and 
that our diplomacy and development teams are often among the first in 
harm's way.
    Mr. Chairman, my journey in development didn't end with my time in 
Tanzania, nor did the lessons I've learned. Back here in the States, 
I've been blessed to work with important organizations that are 
mobilizing resources, policies and ideas to make our development work 
in the field so much more effective.
    My work with Malaria No More and the U.S. Global Leadership 
Coalition taught me the importance of bringing together voices from all 
sectors -- business, civil society and defense -- to educate voters and 
their representatives on the importance of American leadership. My 
activities with the International Conservation Caucus Foundation have 
shown me how bipartisan coalitions can be forged for important causes 
like common-sense conservation.
    My work with the Consensus for Development Reform and my time on 
the Board of the MCC drove home the importance of monitoring and 
evaluation, and focusing on outcomes. These last three-plus years as 
President of the International Republican Institute have shaped my 
views in so many ways. I've traveled to places like Mongolia, Ukraine 
and Colombia, and I've seen how vitally important good governance is to 
sustainable development outcomes.
    All of these experiences, from working in classrooms in Kenya, to 
walking hospital wards in Tanzania, to observing election halls in 
Jordan and Burma, have shown me that the American people and our lead 
development agency, USAID, can be an irreplaceable force for good in 
the world.
    It would be an extraordinary honor to lead the men and women of the 
U.S. Agency for International Development.
    From responding to disasters and pandemics, to feeding the 
desperate and healing the sick, opposing extremism, strengthening 
governance, and creating opportunity for children, small business 
owners, and rural farmers, USAID's work is broad and its impact is 
growing.
    Early results show that in the last six years, USAID's food-
security efforts have helped save nearly one million children from the 
lifelong effects of chronic malnutrition, and helped at least nine 
million more people live free from extreme poverty.
    USAID has helped save almost seven million lives through the 
President's Malaria Initiative, supported life-sustaining HIV 
treatments for 11.4 million more through PEPFAR, and our humanitarian 
assistance has reached more than 350 million people suffering through 
disasters and food emergencies.
    USAID isalso pioneering new technologies to help entrepreneurs gain 
access to financing, combat diseases like Zika and Ebola, and bring 
reliable electricity to whole communities and countries.
    Mr. Chairman and members of the committee, I know that, if 
confirmed, I will take the helm during a time of unique challenges for 
the Agency, the wider development community and those of us working to 
ensure our nation's security.
    International development needs have always outstripped resources. 
Yet, the needs facing us today are nearly unprecedented. We will need 
to make tough, smart choices in order to best advance our interests and 
values.
    Violent extremism in many parts of the world, hostility to civil 
society and attacks on values we hold dear are making our work more 
dangerous and more expensive.
    On the other hand, there are reasons for great optimism. 
Innovations like SMS and smartphone applications are connecting the 
developing world. Research is hastening the eradication of scourges 
like Ebola and malaria. These are just a few of the advancements that 
hold great promise for our work.
    International development is one of those quiet places where 
Republicans and Democrats have long come together on a bipartisan 
basis. It was, after all, President Bush who created MCC and PEPFAR, 
and then President Obama who launched Power Africa and Feed the Future.
    If confirmed, I will do my best to work in this bipartisan spirit 
and apply the many lessons I've learned since first arriving in that 
East African classroom.
    Mr. Chairman, you've asked me for my priorities for USAID. I can 
best sum them up this way: every President in modern memory has 
suggested that the purpose of foreign assistance should be ending its 
need to exist. If confirmed, I plan to make that our core organizing 
principle.
    That would mean pursuing three overarching priorities.
    First, I will make sure that our programs respect our taxpayers.
    I will set a high standard of accountability for USAID and our 
partners. Our foreign assistance funds are precious: they come from 
hard-working families all across this great country. We owe it to them 
to use these as efficiently and effectively as possible.
    I will focus our limited resources on what is working, and end what 
is not. I will scrutinize every program and every expenditure to ensure 
that we are maximizing value, minimizing waste and always advancing 
America's interests. But I will need your advice and counsel on how to 
do this best, and I commit to consulting with you as we move forward.
    Second, I will make it clear to our partners that our assistance 
isn't open-ended or inevitable or, most important, a substitute for 
what they must take on themselves. Our support must never be seen as a 
gift or a handout, but instead as the proverbial hand UP.
    Every program should look forward to the day when it can end. So I 
will ask every USAID mission to evaluate how each program dollar moves 
a country closer to that day.
    We should emphasize programs that incentivize local capacity-
building and implementation, mobilize domestic resources and ensure 
that our host-government partners have ``skin in the game.''
    To be very clear, USAID will NOT walk away from our commitment to 
humanitarian assistance, and we will always stand with people 
everywhere when disaster strikes, for this is who we are as Americans.
    But I also believe that the truest sense of American compassion 
comes from helping people and countries take care of themselves and 
craft their own bright futures.
    Third, and finally, I will work to reform our assistance tools and 
reshape our programs to better reflect America's evolving relationship 
with the developing world.
    When USAID was first created, about 80 percent of the money flowing 
from the United States to the developing world was government money -- 
``official development assistance.'' Today that figure is less than 10 
percent.
    International commerce, remittances and private philanthropy have 
become transformational forces that are creating unprecedented 
opportunities for improving the human condition. There are more 
American companies investing in Africa and more faith-based 
organizations serving communities across Latin America than ever 
before.
    We are living in a remarkable time of innovation and 
entrepreneurship. When Sue and I lived in that Kenyan village, only one 
wind-up telephone served the entire neighborhood. Visiting that same 
village just a dozen years later, all the teachers had cell phones. 
These days, just a dozen years after that, these same teachers are 
paying their bills, accessing electricity and connecting to banks -- 
all on their smartphones.
    These changes have upended the development landscape. There are 
literally trillions of dollars that could be mobilized for development 
if we learn to better leverage partnerships, catalyze private-sector 
investments and amplify the efforts of foundations and non-profits.
    If confirmed, and working with you, I will pursue ideas for 
reforming USAID's offices and procedures, rethinking its structure and 
changing the way it engages with the many players in the development 
space to better tap into new financial flows, catalyze mutually 
beneficial investment and remove unnecessary bureaucratic obstacles to 
private-sector participation.
    I will consult with a wide range of partners, public- and private-
sector, commercial and non-profit, to ensure that we are engaging them 
in the most-effective way possible.
    Of course, while USAID is America's lead development Agency, many 
other Departments, Agencies and offices provide some aspect of foreign 
assistance. I will work hard to strengthen our interagency cooperation, 
because I saw firsthand in Tanzania how it can be an effective force-
multiplier.
    If confirmed, I will work closely with the Departments of State and 
Health and Human Services and other colleagues across the interagency 
to ensure that USAID's unique development tools are addressing our most 
significant foreign-policy and national-security challenges.
    I will also work to strengthen the Agency's relationship with the 
Department of Defense, especially in crisis states, where the military 
and USAID work side-by-side toward that shared goal of building a more 
peaceful future.
    Mr. Chairman, the same passion that carried me to East Africa 30 
years ago still drives me today. I believe in the power of compassion 
and the power of development.
    But today, I know what I didn't know then. Years of experience and 
learning have shown me that fostering development is hard. But if done 
right, and led well, it can not only help lift lives and strengthen 
communities in far off lands, but also help America achieve many of her 
strategic priorities.
    USAID has done amazing work over the past 55 years, but we can and 
must do even better. If confirmed, I commit to consulting with you when 
there are hard decisions, and working side-by-side to strengthen the 
Agency.
    Mr. Chairman, I believe that USAID is an asset to our national 
security and the global face of American generosity. With your support 
for my confirmation, I commit to working with the talented men and 
women of USAID to build up what is working, change what is not, and 
deliver an Agency that is even stronger and more effective tomorrow 
than the one that exists today.


    Senator Risch. Great. Thank you very much for presenting.
    Senator Isakson. Mr. Chairman?
    Senator Risch. Thank you for presenting what I think is a 
clear vision for the agency and where you want to take it and 
drive it. I am going to--I am sorry. Senator Isakson?
    Senator Isakson. I want to do something that is very rude 
and apologize in advance. I have to go chair the Veterans 
Committee, which is my committee, but I came to Washington at 
the same time Mark Green did. I have known him all 20 years. I 
have never known a better public servant, a better member of 
Congress. I have been to Africa and seen firsthand what he has 
done, and I just wanted to give him my unqualified endorsement 
and thanks for all the leadership he has demonstrated for me 
over the years and wish him the very best.
    Senator Risch. Thank you, Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Risch. Coming from you, that means a lot.
    So, with that, the chairman is going to reserve his time, 
and, Senator Booker, I am going to recognize you for questions.
    Senator Booker. I am going to reserve my time as well and 
defer to Senator Coons.
    Senator Coons. Thank you, Senator Booker, Senator Risch.
    Karibuni. Welcome, Ambassador. And as we had a chance to 
discuss, I am grateful for your willingness to serve as USAID 
Ambassador. And you and Susan have had a remarkable journey in 
service and faith and have made a great difference for the 
people of Wisconsin and for our nation. And I am thrilled to 
have someone with the depth of your experiences in Kenya, in 
Kakamega. As a teacher, you were mwalimu. I was mwanafunzi at 
the time. As a Member of Congress, helping develop some of the 
most innovative and effective programs in American development 
history with MCC and PEPFAR, as Ambassador to Tanzania and in 
leadership roles of IRI and USGLC. All of these will serve you 
well in this role.
    And it is my hope that you will also be an effective voice 
for U.S.-Africa policy within the administration since we still 
have very few signals about how the Trump administration 
intends to engage in a continent with enormous potential and 
where we have a lot of good but hard work to do.
    USAID spends about half of all its money in sub-Saharan 
Africa, and it is a continent that really needs our effective 
and engaged partnership. We talked about the Young African 
Leaders Initiative, or YALI, a relatively small and inexpensive 
program but that I think has a dramatic impact.
    When I visited Liberia during Ebola, I had a chance to meet 
with the returned YALI volunteers who had spent a summer in the 
United States and were now back in Liberia, every one of whom 
was doing remarkable things, leading or starting volunteer 
organizations or embedded into government ministries that 
really needed their professionalism and service.
    As administrator, will you advocate for programs like YALI 
and YSEALI that are, I believe, both low-cost and high-impact 
people-to-people programs to continue? And I wondered if you 
are familiar with the regional leadership centers that the 
USAID currently runs in partnership with the Mastercard 
Foundation and whether you think continuing to support not just 
the summer program here in the United States but building this 
network of highly motivated, promising young Africans is a good 
investment of U.S. dollars.
    Ambassador Green. Senator, thank you. Thanks for the 
question and the kind words.
    I cannot say that I have been fully briefed on the regional 
centers, but I can say I am very familiar with YALI and YSEALI. 
My current organization, the International Republican 
Institute, has hosted YALI interns and we have hired a YALI 
intern, who now works for us in Mali. And we have also done 
extensive work with YSEALI in southeast Asia.
    Your question gets to something that you and I discussed 
briefly that I think is on one hand potentially a challenge but 
on the other an enormous opportunity, and that is the changing 
demographics in the world. The median age of a Tanzanian is 17, 
and it is going down. In Uganda, it is 16. And so we see 
millions of young Africans who are looking for opportunities, 
and I think it is important for us to help them find those 
opportunities, economic opportunities, but also democratic 
opportunities, helping them to engage in institutions so that 
they are invested in the survival of the system, so they are 
making important contributions.
    I believe that the area that we are talking about, 
development from MCC to Power Africa, is one of those 
increasingly rare places in this town that is truly bipartisan. 
Every administration makes contributions in terms of the tools 
that we are able to use in our state craft in this space. MCC 
we were talking about but Feed the Future obviously, YALI, 
Power Africa, I think they are great. I think we should 
continue to build upon them, to find ways to refine them, but I 
think they are great contributions and so I commit to working 
with you on these.
    Senator Coons. Thank you. I am excited to do that, work 
together. I have one more minute so I will ask one more 
question if I might.
    Democracy and governance is an area I am very concerned 
about, I think has been underfunded because those funds were 
used for important programs that I think have shown promise, 
Feed the Future and Power Africa in the last administration. 
And in your testimony you note the importance of good 
governance to sustainable development outcomes and of working 
together to promote values like free speech, free press, and 
fighting corruption. How do you intend to speak up for these 
values as USAID administrator? How can we better address issues 
like corruption and security sector abuse through foreign 
assistance? And frankly, given that there is across Africa a 
competing narrative from China of sort of an authoritarian 
approach to development, how do we make this a higher priority 
and more visible in the Trump administration?
    Ambassador Green. Senator, thank you for the question. 
Democracy and governance is obviously a topic I am passionate 
about and something that is I think an important distinction. 
We often hear about the importance of governance, and 
governance is important, but I think democratic governance is 
awfully important. For the investments that we are all talking 
about to be sustainable over the long haul, what has to go with 
them is citizen-centered, citizen-responsive political systems. 
Otherwise, what happens is we tend to be in a pendulum and 
these investments only last as long as a particular regime 
does.
    It is in our interest to create and to foster and to 
reinforce democratic citizen-centered systems. I do not see a 
dichotomy between emphasizing our values and the other 
development tools. MCC is built upon the premise that they have 
to go hand in hand. There is a certain bundle of values and 
principles that a country must succeed at if it is going to 
rise, and democracy is at the heart of that, so I look forward 
to working with you. You can count on me to be a forceful 
advocate for prioritizing democracy.
    Senator Coons. Well, thank you. If I might, in conclusion, 
I just appreciate your whole family, your children, your wife 
Susan being here and their support of your lifetime of service. 
And, Mr. Chairman, I cannot think of a better opportunity today 
for us to have a truly bipartisan confirmation hearing than 
this, and I look forward to supporting your nomination and to 
working with you as USAID administrator. Thank you very much.
    Senator Risch. Thank you, Senator Coons.
    Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    Now that I am on this side of the dais, let me also say 
thank you for your past service. Let me thank your family for 
your past service, as well as your future service. You 
probably, because of his service, have seen less of your dad, 
less of your husband, and you will probably see a little less 
of him now that he takes on this very important role.
    I really have two questions, Mark, dealing with your 
testimony. And this is really tying in with what you were just 
talking with Senator Coons about as well. I think you 
realizing, having been in the political realm, there is nothing 
more unpopular than foreign aid. As a fiscal conservative, I 
have always talked about that if it is spent well, it is money 
well-spent, and so it is incredibly important that we hold 
recipient nations accountable.
    How familiar are you with the work of, for example, people 
like Bjorn Lomborg and the Copenhagen Consensus that, very 
similar to your testimony, says, ``We have limited resources; 
we must allocate those in a prioritized fashion to do the most 
good for the most people''? Can you just kind of speak to that 
issue?
    Ambassador Green. Senator, I cannot say that I am 
completely familiar with the particular report or point of 
view. What I can say is that I think our development 
assistance--prioritized, deployed accurately and effectively--
helps keep us safer. I think we are seeing tremendous challenge 
and turbulence around the world, and I think our development 
tools can help provide some stability of institutions so that 
institutions and governments are able to deliver for their 
people. I think development can be a helpful tool in our 
efforts to counter and prevent violent extremism.
    I think it also helps us to keep the economy growing. 
Ninety-five percent of the world's population is outside the 
U.S., so our farmers and producers are looking for markets. I 
think if we are able to use these tools well, they help to 
build those markets and advance those markets.
    Some of our tools, like Feed the Future and Power Africa 
help us to mobilize and tap into the private sector here, the 
entrepreneurial spirit that this country is famous for. It is 
part of our foreign policy. It is also good for us.
    So, we do have to prioritize, absolutely. I just believe 
that many of these tools, if pointed in the right way, and 
evaluated well, help us as they help others.
    Senator Johnson. I think one of the more destructive 
aspects and really harms our ability to sell foreign aid to the 
public is when funds are abused. Can you speak to that?
    Ambassador Green. Great question. You are right. Diversion 
of funds, poorly spent funds, whether it be fraud, waste, or 
abuse or just inefficient spending undermines people's faith in 
what we are doing. And so you can count on me to place a 
premium on transparency, on accountability. In the lead-up to 
today's hearing, I met briefly with the USAID inspector 
general, just getting to meet her and introduce myself. I look 
forward to working with her. We have to squeeze these dollars, 
we have to have good vetting systems, and we have to make sure 
that these monies do not go astray.
    It may not be a lot of money in terms of the overall 
Federal budget. It is precious money. It is precious money that 
comes from taxpayers who, in my experience, are willing to see 
those dollars go to good causes in the right places, if we do 
not waste it and do not take them for a fool. And so my 
commitment to you and to the members of the committee is to 
scrutinize, evaluate, and constantly be measuring what we are 
doing and make sure that we do not have the kinds of abuse and 
fraud that we hear about, fortunately rarely, but we do hear 
about and we have to take care to avoid.
    Senator Johnson. I appreciate that. And finally, in your 
testimony I thought it was interesting you used the phrase 
``irreplaceable force for good.'' Since I have entered this 
realm and as a fiscal conservative defending foreign aid, I 
always talk about America has been a phenomenal force for good, 
you know, how proud we all must be when there is devastating 
floods in Pakistan, it is American foodstuffs; when devastating 
tsunamis in Indonesia, it is America's fleet that goes steaming 
to the rescue; and when AIDS devastates Africa, it is a program 
like PEPFAR and billions of dollars spent by America that do so 
much. And as Secretary Mattis said, you know, you either spend 
it here or give me 10 times more for bullets.
    I have heard you speak with real passion because not only 
did you help craft and were instrumental in the passage of 
PEPFAR but you were there on the ground and you have borne 
witness to how powerful an example that is. I just wanted to 
give you the last moments of my time to just describe that to 
the committee.
    Ambassador Green. Well, thank you. Thank you, Senator.
    The story I often tell comes from my time in Tanzania as 
America. So, 1998, Tanzania was a non-aligned nation, which 
means it was sort of looking more the other way towards the 
East. On that terrible day in 1998, the Embassy was bombed 
essentially by al-Qaida. It was a devastating blow to a country 
that had not had that kind of violence.
    In the rubble and in the ashes, it was America, the 
American people who went to work shoulder-to-shoulder with the 
Tanzanians to take on many of their poverty-enhanced 
challenges. And in the span of 10 years, they became a very 
close ally because, as they looked around, who was it that was 
helping them take on AIDS, take on malaria, take on poverty, 
take on educational challenges? It was the American people.
    When I served as Ambassador in 2008, President Bush became 
the first sitting President to visit Tanzania. And what he was 
struck by as we were driving the streets, the crowds were 10-
deep. And President Bush, to his great credit, said, look, it 
is not about me; it is about PEPFAR. It is about the 
President's malaria initiative. It is through these tools they 
understand that American people care.
    That is about the best brand I can think of. If we are able 
to project that brand to people saying, look, when disaster 
strikes, we are there, we are with you, we do not waste the 
money and, we will help your ability to take care of 
yourselves--because you do need to take care of yourselves--but 
in those challenging times we will be there. And, again, I 
think is our great value.
    Final point, sort of where you began, there are challenges 
in the world, and I know sometimes people get tired that it is 
always America that gets called in to help out. All I know is 
the world does not get better if America recedes into the 
shadows. There is just no way the world gets better. And so we 
have to be a force in the world stage, and we have to be a 
force for good. And I think these tools, crafted in bipartisan 
way with tremendous bipartisan support, that is a key part of 
who we are and a key part of our foreign policy.
    Senator Johnson. Thank you, Mark. The President has 
nominated a very good man. I just want to say I appreciate the 
expressions of bipartisan support.
    Thank you, Mr. Chairman. Thank you.
    Senator Risch. Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    I could not agree more with both you and Senator Johnson. 
As you know, many of us are deeply worried that we are right 
now in a period of massive withdrawal, America, from the world, 
and it seems that we have been presented with a budget that is 
a blueprint for America walking away from all of these 
leadership positions that we have put ourselves in.
    And I always love listening to Senator Johnson talk about 
his support as a fiscal conservative for foreign aid because I 
hear that back in Connecticut all the time. The, you know, 
folks who support Democrats, folks who support Republicans, 
they understand why we need to be forward-deployed to protect 
ourselves but also to do good. Folks in Connecticut are really 
proud when it is America that is coming to the rescue of people 
who have been devastated by famines and floods.
    You know, and the polling is so interesting because it 
tells you that most Americans think that, you know, about a 
third of the budget that we appropriate every year is spent on 
foreign aid when the reality is it is around 1 percent. But the 
most interesting piece of those polls is that when you ask 
Americans how much they think we should be spending on foreign 
aid, they tell you about 10 percent of our budget. And so it is 
interesting the disconnect that exists between the debate here 
and especially the budget that the President has proposed to us 
and where our constituents are.
    I am just so glad you are willing to serve in this 
position, and my hope is that not only will you be an effective 
administrator but that you will be a political power for good 
inside this administration, that you can help explain to this 
President and his national security team how we are cutting off 
our nose to spite our face if we proceed with 30-plus percent 
cuts to these programs.
    And in that spirit, let me--I know you are not here to 
defend the budget, but let me just talk to you about one of the 
facets that worries me about it and get your comments. I think 
if you look at the budget that is presented to us, you can make 
an argument that this administration is proposing to stay in 
the game of trying to put broken countries back together but is 
proposing getting out of the game in terms of preventing 
fragile states from becoming broken. So, we are spending money 
in this budget in Iraq and Syria and Libya, but we are 
effectively gutting funding for places like Jordan, Lebanon, 
Tunisia, and places further afield like Bangladesh and Mali and 
Nigeria.
    You know, in your experience, you know, talk about the 
importance of spending a little bit of money to help fragile 
states hold it together rather than waiting until they fall 
apart to spend a whole bunch of money later on.
    Ambassador Green. Senator, thank you. I think you are 
asking one of the key questions that we all need to take on. 
You are right; as I have been preparing for today, I have been 
startled by just the sheer need that is out there in the 
immediate sense. A famine was already declared in parts of 
South Sudan. We have three other countries that are teetering 
on famine and unfortunately may fall into famine in 2017, which 
would be the first time since World War II where four countries 
will simultaneously be in famine. And obviously, the 
humanitarian needs that go with that are enormous.
    The United States is the largest bilateral donor and the 
largest provider of such assistance, and I think we will 
continue to do our part.
    But you are right; you have the immediate, but you also 
have that which is at risk. You have parts of the world that 
are either newly post-conflict or fragile, and it is important 
that we find the resources to strengthen those fragile 
institutions, helping people--for example, we spoke earlier 
about that demographic of young people who may feel 
marginalized, who may feel alienated, who may have less than 
the economic opportunity that they might want. Those are areas 
where I think we do have to make some investments to prevent 
longer-term conflicts.
    Senator Murphy. One final quick question about that, and 
that is flexibility of funds. One of the complaints that I have 
heard over and over again at State and at USAID is that we box 
funds in on a country-by-country and capacity-by-capacity basis 
whereas it might make much more sense to give the administrator 
or an Assistant Secretary the ability to quickly deploy funds 
to an area that needs them.
    Do you have thoughts on this and recommendations that--
maybe not today but you might be willing to give us as to how 
we grant you and your team that you will have between USAID and 
State, the ability to move funds a little bit more 
expeditiously?
    Ambassador Green. Well, Senator, I have to confess to you 
that the staff who was preparing me for today said for goodness 
sakes, do not bring that up, but you brought it up.
    Senator Murphy. I did.
    Ambassador Green. You are right. So, the numbers that I 
have seen suggest that, of the most recent, the fiscal year 
2017 budget, only 7 percent of that is flexible as opposed to 
29 percent back in 2009. Obviously, that limits the ability of 
USAID, the administrator, working with all of you to adjust to 
changing circumstances. So, I will come to you with some 
specific ideas, but obviously circumstances are changing so 
rapidly these days that flexibility would be tremendously 
helpful, and I thank you for raising the point.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Risch. Thank you.
    Senator Young?
    Senator Young. Thank you, Chairman.
    Ambassador Green, I just cannot tell you how excited I am 
to support your nomination today. I cannot think of a better 
person for this position. I really enjoyed our visit in the 
office again this week to discuss the future of USAID and how 
we might reform it. As I mentioned to you in the office, 
Senator Shaheen and I have convened a bipartisan commission, a 
task force working with CSIS, and the purpose of this 
commission is to help you. As you step into your new role, we 
will be providing some actionable recommendations on what 
optimal development reform--how to achieve a more optimal 
development reform and reorganization, something you are 
focused on.
    We have brought in former Bush and Obama administration 
officials, retired Foreign Service officers, former 
Ambassadors, former National Security Council staffers. We have 
met twice. We are going to meet one more time, perhaps two more 
times, and we intend to issue a public report in mid-July.
    Ambassador Green, after our report is released, would you 
be willing to meet with me and Senator Shaheen, as well as some 
of these top development experts, to hear our recommendations 
related to reform and reorganization of USAID in our nation's 
development enterprise?
    Ambassador Green. Thank you for the question and the 
opportunity, very much so. I would be quite interested. Again, 
I think this is an area of foreign policy that is not partisan.
    Senator Young. Right.
    Ambassador Green. And so the fact that you are able to 
bring together members of the committee from both sides of the 
aisle I think is great. I will look forward to the report and 
discussing it with you, and I am very interested in what you 
will be putting together.
    Senator Young. Well, thank you for your indulgence on that.
    Would you agree that U.S. development efforts can and 
should be better coordinated across agencies? I think you have 
already spoken to this.
    Ambassador Green. Yes.
    Senator Young. Yes.
    Ambassador Green. Yes. I think foreign assistance is right 
now implemented by 60 different offices, departments, and 
agencies throughout the executive branch, so sure, I think that 
makes sense.
    Senator Young. Would you also agree that USAID's operations 
would be more efficient, more effective if they are informed by 
a fresh strategic analysis that includes the establishment of 
specific development priorities, objectives, milestones, and 
metrics supporting the national security strategy and also 
coordinated with the national defense strategy, while balancing 
ends and means and identifying risks along the way?
    Ambassador Green. Senator, I think these challenging times 
that we see in so many parts of the world require us to ensure 
that our development tools are coordinated with other parts of 
our broader national security strategy, so I think that makes 
sense, and I look forward to following up with you and seeing 
how we can help inform that and participate.
    Senator Young. Well, that is encouraging. At an earlier 
hearing before the full committee some weeks ago, former 
Secretary of State Madeleine Albright indicated this very sort 
of strategic analysis is needed. In fact, she said it would 
make an important difference. And at that same hearing, former 
National Security Advisor Hadley said, quote, ``I think it is a 
terrific idea, and we need the kind of process you described.''
    So, Ambassador Green, do you agree with the assessment of 
Secretary Albright and Advisor Hadley that our nation's 
development efforts would benefit from this strategic analysis? 
This is what we call a leading question in the business.
    Ambassador Green. Senator, if confirmed, I will look 
forward to working with you on it, and I do think that such a 
national security development strategy makes sense and is a 
useful contribution as we look to craft long-term policy.
    Senator Young. Well, I of course agree, and that is why on 
May 24, Senator Shaheen and I introduced S. 1228. It is the 
National Diplomacy and Development Strategy Act of 2017, and I 
look forward to working with this committee to pass the 
legislation, and once it is passed, look forward to working 
with you to ensure that our development reform and 
reorganization efforts, as well as the operations of USAID, are 
guided by current and careful strategic analysis.
    In the remainder of my time I would like to pick up on an 
issue that my team and I have worked very hard on in recent 
months, and it pertains to the situation in Yemen, the largest, 
the most serious humanitarian crisis in the world. I know you 
are well aware of it. The port of Hodeida in the Red Sea 
processes between 70 and 80 percent of the incoming cargo, 
critical imports into the country of Yemen historically. And a 
large portion of the individuals in most desperate need of food 
and medicine are right near that port within the country.
    For a variety of reasons, we are seeing bottlenecks and 
delays at Hodeida. There are life-and-death implications. In 
fact, two-thirds of Yemen's population is at risk of starvation 
or succumbing to disease in coming months by some accounts.
    To increase the port's capacity to deliver these supplies, 
USAID spent roughly $4 million of our tax dollars through the 
World Food Program to procure four cranes. Roughly speaking, 
these cranes would double or triple the capacity of the port to 
offload humanitarian supplies. Unacceptably, these cranes were 
on their way to Hodeida but the Saudi-led coalition revoked the 
clearance.
    Ambassador Green, once confirmed, will you work with me to 
look into this issue and see how we can resolve it?
    Ambassador Green. Senator, thank you for the question. Yes, 
I will. Obviously, access for humanitarian reasons is crucial. 
Yemen is one of the four nations that is either in famine or on 
the verge of it. Sadly, it is manmade. These are political-
driven famines, and so they need political solutions, and I 
look forward to working with you on it.
    Senator Young. Ten seconds with your indulgence, Mr. 
Chairman.
    Senator Risch. Ten seconds.
    Senator Young. I want to give a shout-out to James Bever, 
Acting Assistant Administrator for Legislative and Public 
Affairs at USAID, he responded to my request for action on open 
GAO recommendations. And we have drafted legislation working 
with Senator Menendez on this. And with a little prompting he 
was able to assure us that these recommendations will be 
complied with, these open recommendations. So well done, Mr. 
Bever, if you are watching this.
    Mr. Chairman, I yield back.
    Senator Risch. Ambassador Green, I apologize. We have got--
as always, we are running over the top of ourselves, and we 
have got to run down and vote or we are going to miss the vote. 
So, we are going to take a short recess as quickly as we can go 
down. I know the Senators have some really important issues 
that they want to take up, and so we are going to make it 
happen, but we are going to have to be patient with it.
    So, the committee will be in recess subject to the call of 
the chair. [Recess.]
    Senator Risch. The committee will come to order.
    And we apologize for the interruption, but when they call 
the votes, you have got to go, so thank you very much.
    And, Senator Menendez, you are up.
    Senator Menendez. Okay. Thank you, Mr. Chairman.
    Ambassador, congratulations on your nomination. I am sure 
that--while I was at another event while the bulk of the 
testimony was going on there, I am going to join the many who 
commend and respect your work and public service as a 
Congressman, as an ambassador, and, most recently, at the 
International Republican Institute. And I say that as a 
Democrat.
    So, I have full confidence in your experience and 
commitment to the mission of USAID, and I believe the agency 
and the American people will be well-served by your leadership.
    However, my concern for USAID, however, is that your 
passion for public service and what I take to be your 
fundamental belief that the United States should be a leading 
advocate on the world stage for democracy, human rights, and 
the values we champion here at home is not necessarily shared 
by some leading figures in the administration.
    Earlier this week, Secretary Tillerson came before this 
committee to explain indefensible cuts to critical American 
foreign policy and foreign assistance initiatives, programs in 
support of democracy, economic development, lifesaving 
humanitarian and health initiatives, and unfortunately did 
nothing in my mind to assuage the concerns that I share with 
others that USAID and the institutional knowledge, the 
technical expertise, and the long-term programming it houses 
would be folded into a weakened and less-effective State 
Department.
    Now, I do not believe USAID is perfect, but I do--and I 
certainly welcome reforms that promote best practices, 
efficiency, and transparency, but its mission is fundamentally 
different from the State Department and critical to United 
States national security.
    So, with that, a few questions in mind. Do you believe that 
USAID should remain an independent entity from the State 
Department?
    Ambassador Green. Thank you, Senator. We had a brief 
opportunity to discuss this before today. First off, I can tell 
you about the conversations that I have had with the Secretary 
on the subject. The Secretary has assured me that he has an 
open mind as to what the relationship is or should be between 
USAID and State and also what each internal structure should 
be.
    I have indicated that I have a great passion in reforming 
foreign assistance, some of the things that you have made 
reference to in trying to make them stronger, and he said he 
looks forward to my leadership on reform and otherwise will 
keep an open mind.
    Specific to the question of the structure, to me it is less 
a question of where boxes should be and what they should look 
like and more a question of taking a look at what the mission 
is and how do we organize around it. And to be honest, it is 
premature in the sense that we have not really gotten into that 
yet, so I cannot answer you in terms of what I think it is 
going to look like.
    Senator Menendez. I did not ask you that question. I asked 
you a very specific question, which--and I respect what you 
were telling me and I appreciate our private conversation that 
we had. But the question is in all of these things, if you are 
confirmed by the Senate, you will be in a position to be an 
advisor, an advocate. You may not always win on your views, but 
you are going to be in that position.
    What I want to know before I vote for somebody, as 
distinguished as I think your service is, is whether you 
believe--you may not win at the end of the way--but whether you 
believe AID should remain an independent entity from the State 
Department?
    Ambassador Green. I believe that the State Department and 
USAID need to be closely aligned, but I believe that they have 
different cultures within each institution, what that alignment 
looks like. To be honest, I do not know at this point.
    Senator Menendez. Do you believe it is in the United 
States' interest to actively support democracy and human 
rights?
    Ambassador Green. I do.
    Senator Menendez. Will you be an advocate for maintaining 
democracy assistance in governance programs?
    Ambassador Green. I will be.
    Senator Menendez. Where do you think USAID's missions 
differ from that of the State Department?
    Ambassador Green. I think the biggest differences are in 
how they go about their work. USAID is an operational agency. 
It is not so much a diplomatic agency, a policy-setting agency, 
as it is one that uses soft-power tools to advance ends and 
priorities identified by the State Department and by the White 
House, so that to me is the fundamental difference between the 
two.
    Senator Menendez. And one is also a diplomacy effort and 
the other one also, as USAID, has very specific programmatic, 
development, democracy, and whatnot that it moves into effect, 
and so I hope you will be able to maintain those.
    Let me make one final overarching question. You and I 
talked about that there are a number of very interested 
organized constituencies in our country who find USAID in that 
respect ineffective and nepotistic. Haiti is an excellent 
example of that but there are others. I have also heard from 
U.S. and New Jersey companies, some of them who are leaders in 
the world in their fields, who cannot get past first base with 
USAID. And it seems to me that, certainly under the President's 
made-in-America, America-first efforts and whatnot, that at 
least when you are the global leader and you are a United 
States company, then you should have an opportunity at USAID 
because at the end of the day, I do not know how--you become a 
global leader in the marketplace itself, and then you cannot 
get one of your governmental agencies to consider you. 
Something is wrong with that. Would you agree to look into that 
if you were to be confirmed?
    Ambassador Green. Absolutely.
    Senator Menendez. All right. Thank you very much, 
Ambassador.
    Senator Risch. Thank you very much.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Ambassador Green, for the opportunity, 
Congressman, for us to be here with you today. I truly 
appreciate your work and your willingness to serve.
    And I think one of the most telling ways to learn about a 
person's capacity, intelligence, understanding in any position 
is to look at whether they understand our dairy policy. And we 
have one of the few individuals before us today who actually 
understands this country's dairy policy.
    [Laughter.]
    Senator Gardner. Such as it can be understood.
    So, on a serious note, I want to thank you for your 
leadership. You and I had a great conversation about Southeast 
Asia as a number of countries that I continue to work with 
through the East Asia Subcommittee. We had a conversation about 
Aung San Suu Kyi's party, the National League of Democracy, and 
the fact that after basically 60 years of military rule, Burma 
has entered into a stage of civilian leadership, given some of 
the constitutional restraints that still remain and how they 
are going to have this new democratic government address 
challenges and how they have promised to address some of the 
challenges that they face.
    As we know, Burma is one of the least-developed countries 
in Southeast Asia. About 25 percent of the people in Burma live 
under or below the poverty line. Only 30 percent, only 30 
percent in the entire country have access to reliable 
electricity, and the United States and international community 
has to do more to help support this democratic effort and 
success of this new transition and to make sure that we have a 
country that continues to grow and trade and opportunity 
aligned with America's interests.
    So, last year, I introduced the Empower Burma Act. It was 
directed at engaging the United States, the administration to 
produce a comprehensive multiyear strategy to help address a 
sustainable economic development in Burma, which includes 
helping to meet the Government of Burma's stated goal of 
universal access to electricity by 2030, one of the key 
objectives that government policy leaders have said in Burma is 
one of the most important things to be accomplished by this new 
government.
    And so can I get your commitment that you would help 
prioritize this Burma democratic development at USAID?
    Ambassador Green. Thank you, Senator, for the question, and 
yes. I had the opportunity to observe elections in Burma, and 
it was one of the most uplifting experiences seeing what people 
do to exercise their right to vote standing in the hot tropical 
sun for that chance to have the first real free election in 
generations. There is enormous potential in Burma and enormous 
need for help.
    It is one of the most ethnically diverse countries in the 
world, and there are challenges in terms of building the social 
compact, but I think there are opportunities, business 
opportunities, educational opportunities, opportunities to 
strengthen civil society, create a more vibrant democracy--I 
think the sky is the limit for Burma.
    Senator Gardner. And thank you. And we also in our 
conversation had a chance to talk about the goal of a program 
or foreign assistance is not designed to create a permanent 
crutch, but it is to create opportunities for that country to 
develop the capacity for trade, the rule of law, to be able to 
be a stronger nation through the work and partnership that the 
United States can pursue with them.
    And so as you look at areas in Southeast Asia like Burma, 
perhaps others, what do you think the most significant rule-of-
law challenge is that you will face at USAID through these 
nations?
    Ambassador Green. Of course, it varies country by country, 
but I think we have the opportunity, through technical 
assistance and also incentivizing, to help these countries 
undertake certain policy reforms such as protection for 
intellectual property that will create enormous economic 
opportunities for them, as well as for American companies that 
are seeking to partner.
    So, I think it is a part of the world where there is 
tremendous opportunity there, but they do need our assistance. 
These are young democracies in many cases, and the technical 
assistance which we can provide, which is a very modest 
investment, I think can pay off huge dividends to mutual 
benefit.
    Senator Gardner. Thank you, Ambassador. I unfortunately 
have another committee to go to so I will let you off the hook. 
Thank you.
    Senator Risch. Thank you, Senator.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And, Ambassador Green, congratulations on your nomination, 
and thank you for being willing to take on such a critical post 
at such a significant time in the world. I very much 
appreciated the time we had to sit down together to hear a 
little more of your views.
    And one of the things that I am very concerned about and 
you expressed your concern about, the humanitarian crises that 
we are seeing in the world, particularly in Syria, Nigeria, 
South Sudan, Somalia, Yemen. We know that women and girls are 
disproportionately impacted during humanitarian crises and that 
sexual violence, exploitation, child early enforced marriage 
often increase significantly, while access to services, 
including maternal child health, drastically decreases.
    Now, despite America's longtime leadership in addressing 
these issues, the State Department determined back in April to 
withhold funding from the United Nations Population Fund, the 
leading and sometimes only provider of maternal health 
services, post-rape care, and other vital reproductive health 
services in humanitarian crises.
    So, we discussed the whole issue of reproductive rights, 
and I appreciate that we have different personal views, but I 
am sure you would agree with me that it is unacceptable to 
place vulnerable women and girls in a situation where they lose 
their only access to health care, basic services. So, can you 
talk about how you will work, if confirmed, with the State 
Department to ensure that the needs of these women and girls in 
crisis situations are being met?
    Ambassador Green. Senator, thank you for your question.
    I enjoyed our conversation very much. You are a forceful 
advocate for programming that rightly involves women and 
children, girls in particular, and as we discussed, I believe 
from a development perspective, it is vitally important that we 
integrate women and girls into all of our programming for lots 
of development reasons. You get the best development outcomes 
that way, including in terms of our shared goal to have more 
responsive citizen-centered democracy. No democracy can succeed 
if it is not listening to all of its voices. In too many parts 
of the world, women's voices are not heard and not welcomed at 
the table, and I am certainly committed to taking it on.
    The specific question that you asked, as I mentioned, it is 
my understanding that the State Department is undertaking a 
six-month intensive review to study the impacts of the expanded 
policy and whether it leads to interruption of services on the 
ground. As I mentioned to you, I know that USAID will be part 
of that review, and as I committed to you, we will play that 
straight. We will look to see what those impacts are and be 
very clear and transparent about what our findings are so you 
can count on us to be sort of honest brokers in that process.
    Senator Shaheen. I very much appreciate that. There are two 
issues here. One is the one you just referenced about the 
expansion of the Mexico City policy. The other one that I was 
clearly not direct enough about referring to is the decision to 
stop funding UNFPA by the United States. And so how will you 
address that issue within the State Department?
    Ambassador Green. In that separate issue I understand the 
State Department issued the finding that you referenced. What I 
do not know is how those monies are being reprogrammed; I 
simply do not know that at this point. I would be happy to get 
back to you as I learn more about that process and what is 
happening there.
    Senator Shaheen. I would appreciate that. I will continue 
to advocate that that is money well spent that is a benefit to 
us here in America if we make sure that women and girls who are 
vulnerable around the world get the health care that they need.
    Another issue that has been very troubling has been the 
violations of LGBTQ rights around the world from Africa to 
Asia, and it is not just discrimination. That in and of itself 
would be bad enough, but it is beating, jailing, terrorizing, 
and often killing people who are identified as being LGBTQ. 
Again, the United States has had a very important leadership 
role in working with other countries around the world to urge 
them to protect the human rights of all of their citizens. So, 
can you tell me how, as administrator of USAID, you would 
handle situations where you have countries that are 
discriminating and terrorizing members of their LGBTQ 
community?
    Ambassador Green. Thank you, Senator. And it is a very 
important issue, increasingly important issue. As you may be 
aware, last weekend, the State Department put out what I 
thought a very appropriate statement. And it said violence and 
discrimination targeting any vulnerable group undermines our 
collective security, as well as our America values, 
specifically about LGBTI, and I think that is a very important 
policy for us all to follow.
    Senator Shaheen. I agree.
    Ambassador Green. Again, the way I look at our work at 
USAID is that we need to make sure that our programming reaches 
all marginalized communities, and in many parts of the world, 
LGBT marginalized communities, and that is something that we 
will continue. It is important. No country can rise if it is 
discriminating against any marginalized community. No country 
can be a vibrant democracy if it is not listening to all of its 
voices. So that is certainly something that I plan on 
continuing. It is important.
    Senator Shaheen. Well, thank you. I very much appreciate 
that and will look forward to working with you as you continue 
to be a voice to prevent discrimination not just against women 
and girls but against all members of our global world.
    Senator Risch. Thank you very much, Senator Shaheen.
    Senator Booker, did you have anything else that you wanted 
to add?
    Senator Booker. Okay. I just wanted to do two quick things 
if you do not mind.
    Senator Risch. Sure.
    Senator Booker. I have a lot of concerns, as I know you do, 
about the Kenyan elections coming up in early August. We have 
about 1,000 people in the U.S. mission that are on the ground 
doing incredible work in Kenya right now, again, as I know you 
are aware of. I just have some concerns about this election and 
fear that a lot of our personnel will actually be at risk at 
the Kenyan election, sees kind of the related violence we saw 
back in 2007. I just wonder if you have any thoughts about what 
we can do there, especially and very frankly when I see the 
budget proposed by the administration's fiscal year 2018, which 
is almost a 40 percent cut in sort of governance and democracy 
work.
    Ambassador Green. Senator Booker, thank you for that 
question. It is a very important question. I, too, worry about 
Kenya. I was Ambassador in Tanzania during that horrendous 
election and fallout in Kenya. In fact, then-Secretary Condi 
Rice, who was with us in Tanzania, had to fly back and forth 
trying to deal with the fallout from those terrible, terrible 
days. I share your concerns. USAID is, as I understand it, at 
this moment trying to help in a number of ways. There are the 
obvious preparations for an election and the integrity of the 
process and the voter rolls and the Independent Election 
Commission, but also there are the investments around--God 
forbid--knock on wood, but the post-election violence and USAID 
is working on reconciliation tools. Violence is something that 
we all need to keep a close watch on. Those 2007 elections that 
led to all that violence were horrendous, and I am not sure we 
even have an accurate measure as to how many lives were lost.
    Senator Booker. So I just want to say, first of all, I 
appreciate that. I am encouraged by who you are, what you stand 
for, what you have advocated for in your leadership roles, 
especially the most recent one. I do really worry, and the 
wisdom of--we are both acting chair and ranking, but the wisdom 
of Senator Risch about creating a balance, we all want to be 
fiscally responsible and make sure--to steal a metaphor that 
was just told to me--when we throw stuff against the wall, that 
the stuff sticks and it is not wasted money and resources. I am 
very sympathetic to that as a guy who ran a local government 
and saw a lot of waste, increase efficiency and effectiveness. 
But I do know that we are in this global competition in many 
ways, and the rise of China concerns me not just for my 
children but my grandchildren and my great grandchildren.
    China's development assistance to Africa has increased 780 
percent since 2003. They have now pledged $124 billion more at 
a time that we seem to be receding in our investments. We lead 
with our values in countries like that. China seems to have 
overt utilitarian purposes for their investments. And so I just 
worry as a country who is beating us on infrastructure 
investment in their country, stepping up to compete with us in 
investments in information technology, beating us with 
education investments, now on the global stage, they seem to be 
advancing in terms of their investments as we are announcing 
receding.
    So, I know this is something that you are now smackdab in 
the middle in one of the most important jobs that I have seen 
as I have traveled around the world, see these amazing USAID 
workers right there putting themselves at risk, doing critical 
work, building democracies, leading with our values. And so I 
just wanted to--I think that we are going to close this hearing 
momentarily, but I just want you to know that I have grave 
concerns about a retreat of American leadership at a time that 
our globe severely needs it.
    I know from being a mayor that your budget reflects your 
values, and I have a lot of concerns that the values you have 
expressed, that I have read about, the reason why I think you 
have so much bipartisan support, I worry that those values that 
you are expressing might not be expressed and seen within our 
budget. Thank God article 1 branch of government sets the 
budget, and I have great leaders on the Republican side here 
who understand that.
    So, I just want to thank you for your leadership. I want to 
thank your family especially for their commitment to you and 
empowering you. Clearly, from a few moments with your wife, I 
see that you married up, sir. Thank you.
    Senator Risch. Senator, we all did.
    Well, thank you very much. And Senator Booker is in on 
something that does not get a lot of ink yet, but it is going 
to get more, and that is those of us on this committee, 
everywhere we go, we cut the Chinese path. They are everywhere. 
They do things differently than we do. They do have a lot of 
investment that they are putting in place on the ground. They 
do not have anything like USAID, and we Americans should be 
very proud of that.
    Well, I am going to keep the record--there are a couple 
Senators I think that have other questions, but I am going to 
keep the record open until close of business tomorrow for 
questions for the record that you may or may not get.
    Mr. Green, very seldom do we get people that have the 
support you do for this from both sides of the aisle. I think 
the world is going to be a better place when you are confirmed, 
and I am absolutely confident you will be confirmed. Thank you 
to you. And just as importantly, thank you to your family for 
their support.
    So, with that, the meeting will be adjourned.
    Ambassador Green. Thank you.
    Senator Risch. You bet.
    [Whereupon, at 12:04 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
             Submitted to Mark Green by Senator Bob Corker

    Question 1. The Electric Africa Act directs existing U.S. 
Government resources from many agencies to encourage the installation 
of 20,000 megawatts of additional electrical power and to promote 
efficient institutional delivery of electrical service to rural and 
underserved areas. This law improves access to affordable and reliable 
electricity in order to unlock the potential for inclusive economic 
growth, job creation, food security, improved health and education and 
environmental outcome and poverty reduction.

   Do you agree that the provision of electricity throughout Africa 
        and the world is a top development priority and in the national 
        interest of the U.S.?

    Answer. Yes.

    Question 2. How will you work and engage with USAID and partners to 
ensure that the law is carried out and support this law and to advance 
the goals of the Electrify Africa Act?

    Answer. If I am confirmed, I will work with Power Africa's many 
partners, public and private, to carry out the Electrify Africa Act, 
recognizing that every U.S. taxpayer dollar spent on Power Africa 
leverages investments from the private sector, national governments and 
others. If confirmed, I will work to ensure that USAID continues to tap 
into and coordinate the work of Power Africa's more than 150 partners.

    Question 3. Any reorganizing should eliminate duplication and 
maximize efficiency. There are three offices that handle overlapping 
pieces of our humanitarian assistance, two at USAID and one at State. 
We are told USAID commissioned a study of the impact of consolidating 
its two offices and found up to $130 million in basic savings. Should 
you be confirmed, will you provide the committee with a briefing about 
this study and ensure this is considered during the administration's 
reorganizing plans?

    Answer. Yes. If confirmed, I will provide the committee with a 
briefing on the study you mentioned regarding potential consolidation 
options within USAID.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Mark Green by Senator Benjamin L. Cardin

    Question 1. If confirmed, how will you engage with Secretary 
Tillerson, the OMB Director and the President to best represent and 
protect USAID's equities in U.S. foreign policy planning and 
administration?

    Answer. As I stated in my written testimony, I believe that USAID 
is an asset to our national security, and the global face of American 
generosity. If confirmed, I will work closely with Secretary Tillerson 
and other relevant colleagues to ensure that USAID's unique development 
tools are addressing our most significant foreign-policy and national-
security challenges.

    Question 2. If confirmed, will you commit to consulting with 
Congress and the development community on the development and 
implementation of the reorganization process?

    Answer. Yes.

    Question 3. Which regions or sectors should USAID prioritize and 
what criteria should be used to inform how priorities are set?

    Answer. There is no one measure that we should use, but instead a 
combination of factors. Criteria would include, but not be limited to, 
overall strategic considerations (the country's importance in U.S. 
foreign policy); the cost and effectiveness of the interventions and 
programs under consideration; the immediacy and severity of the needs 
to be addressed; the opportunity for advancing America's economic 
interests; the opportunity for advancing America's security interests; 
the potential for conditions in a particular country or setting to 
create dangerous conditions in another; the potential for a particular 
project or intervention to serve as a model that can enhance our 
overall development knowledge; and, of course, the security situation 
for USAID personnel and partners.

    Question 4. USAID was made a regular member of the National 
Security Council Deputies Committee earlier this year. What role do you 
expect to play in the NSC? Given USAID's permanent participation on the 
NSC committee, how will you assert USAID's presence on the NSC and 
ensure development is well integrated into the NSC's planning 
processes?

    Answer. USAID will continue to engage at all levels of the National 
Security Council (NSC) policy process. If confirmed, I expect to attend 
Principals and Deputies Committee meetings regularly, and to be an 
advocate for USAID.

    Question 5. Do you believe, as was stated in the 2010 Quadrennial 
Diplomacy and Development Review (QDDR), that development is an equal 
pillar in American foreign policy to defense and diplomacy?

    Answer. Yes.

    Question 6. What, in your view, does an ``America First'' policy as 
declared by President Trump mean for an agency whose work focuses 
entirely on other countries?

    Answer. I believe that ``America First'' means ensuring that our 
policies and programs are focused on advancing America's interests 
above all others. I also believe that USAID has a key role to play in 
advancing our interests. First, many of the agency's tools (both 
humanitarian and development-oriented) can help address conditions in 
other parts of the world than can create fertile ground for violent 
extremism and conflict. Second, many of USAID's development initiatives 
(specifically including Power Africa and Feed the Future) can 
strengthen market opportunities for our goods and services, as well as 
give rise to closer trade relationships. After all, ten out of 
America's 15 top trading partners are former recipients of U.S. 
Government economic assistance. Finally, highly visible efforts, such 
as global food security and Power Africa, as well as our predominance 
in humanitarian assistance, contribute to America's global leadership 
and reputation as a force for good in the world.

    Question 7. In your view, what have been the most lasting results 
of the USAID Forward reform effort launched by Administrator Rajiv 
Shah? What further reforms are needed to make USAID the world's premier 
development agency, as called for in the 2010 and 2015 QDDRs?

    Answer. In my opinion, Administrator Shah's most lasting 
contributions were in the area of enhanced monitoring and evaluation. 
While there is always room for improvement, we know more about the 
efficacy of our approaches to development because of these improvements 
in our ability to measure outcomes.
    As I indicated in my written statement, I believe we are living in 
a remarkable time of innovation and entrepreneurship, which has upended 
the development landscape. While the agency has made strides on 
reforming itself, it must continue to learn how to better leverage 
partnerships, catalyze private-sector investments and amplify the 
efforts of foundations and non-profits.
    If confirmed, I will pursue ideas for reforming USAID's offices and 
procedures, rethinking its structure, and changing the way it engages 
with the many players in development to better tap into new financial 
flows, catalyze mutually beneficial investment, and remove unnecessary 
bureaucratic obstacles to private-sector participation. I will consult 
with current and potential partners, as well as the Congress, to ensure 
that the Agency is working in the most effective way possible. If 
confirmed, I look forward to working with the talented men and women of 
USAID to build upon what is working, change what is not, and continue 
to strengthen the Agency and improve its effectiveness.

    Question 8. How will you prioritize the U.S. Global Development 
Lab's work on innovation?

    Answer. If confirmed, I commit to exploring the opportunities that 
technology and entrepreneurship present by turning to the broad network 
of USAID teams--from the U.S. Global Development Lab to the keenest 
minds we have in our field Missions and offices, and with our many 
partners. Such a spirit of innovation is what I like to call the 
``software of development,'' and it represents America's advantage in 
shaping development outcomes across the globe.

    Question 9. What lessons learned from your service on the MCC Board 
of Directors will best serve you as USAID Administrator? How would the 
MCC lessons and innovations be applied to broader development and/or 
humanitarian assistance? Would you recommend Congress set no sector 
funding mandates for USAID in the same way there are no sector mandates 
set for MCC?

    Answer. I believe there are many lessons from my service on the 
Board of Directors of the Millennium Challenge Corporation (MCC) that 
could help me in my tenure with USAID, should I be confirmed. Perhaps 
the most important one is the effectiveness of incentivized policy 
reform and strategic human capacity-building. I visited with several 
leaders of a particular African country not long after it completed an 
MCC Compact. I will never forget what one leader told me: in essence, 
she said that it was not so much the road built through the Compact 
that was important, but the experience of building it and managing the 
resources. She said the country now had tangible proof that it could 
build a public work, on time, on budget, to world-class standards and 
without corruption. More important, the country had a large group of 
young leaders who gained experience by carrying out the project, 
experience they could apply to other national needs.
    The MCC model has many strengths, including the indicators that are 
a starting point to assess countries' capacity and commitment to good 
governance. For example, the democracy and corruption indicators are 
hard hurdles to eligibility that can incentivize reforms and strong 
policies. USAID has a complementary role to play in helping to move 
countries along the continuum of development so they can qualify for 
eligibility for the MCC. If confirmed, I look forward to working 
closely with MCC in a manner that complements USAID's strengths.
    In terms of sectors and mandates, the subjects of each MCC Compact 
are largely determined through the constraints-to-growth analysis 
performed in advance of negotiations. I believe that development-
assistance priorities should reflect the greatest need, and that it is 
always helpful if those needs can be determined in an objective, 
measurable manner. It would be useful for USAID to have the same sort 
of flexibility to determine allocations to sectors that Congress has 
granted the MCC.

    Question 10. What will you do at the agency to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign and Civil Service?

    Answer. If confirmed, I am committed to working to ensure that 
USAID's workforce reflects America's diversity.

    Question 11. What steps will you take to ensure each of the 
supervisors at the agency are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will work to ensure that the workforce of 
USAID reflects America's diversity, including appropriate training of 
supervisors.

    Question 12. The Payne Fellowship in particular has been a hallmark 
recruitment tool for diversity at USAID. What will do you to ensure the 
success of the Donald Payne Fellowship program and ensure they receive 
the support necessary from the agency?

    Answer. Congressman Payne was a personal friend of mine. If 
confirmed, I will welcome the Donald M. Payne International Development 
Fellowship Program's contribution to attracting outstanding young 
people interested in pursuing careers in the Foreign Service.

    Question 13. What do you believe is the appropriate way for the 
U.S. Government to help countries transition from aid recipients to 
self-sustaining partners of the United States?

    Answer. We must make it clear to our implementers, especially 
national governments, that our assistance is not open-ended or 
inevitable or, most important, a substitute for what they must take on 
themselves. Our support must never be seen as a gift or a handout, but 
instead as the proverbial hand up. Every program should look forward to 
the day when it can end. So, if confirmed, I will ask every USAID 
Mission to evaluate how each program dollar moves a country closer to 
that day.
    There are three approaches we should take. First, we should 
prioritize programs that foster local capacity-building and 
implementation, mobilize domestic resources and ensure that our host-
government partners have ``skin in the game.'' Second, we should 
incentivize policy reforms that give rise to the conditions that 
experience tells us improves economic growth and opportunity. Third, we 
must work with partner countries to increase their own domestic 
resource-mobilization.

    Question 14. If confirmed, how will you maintain and build upon 
USAID's effectiveness in lifting countries out of extreme poverty and 
set on paths towards self-sustained development with a budget proposal 
that would cut 37 percent from the International Affairs Budget?

    Answer. USAID needs to be as efficient and effective as it can with 
its budget, regardless of the level of funding. The work USAID does 
must align with U.S. national-security interests, and advance the 
strategic priorities of the current administration and Congress.
    If confirmed, I will do my best to ensure USAID works in the most 
accountable and efficient manner possible. Furthermore, I will advocate 
in the interagency for better coordination of tools and efforts to 
maximize outcomes and also reduce duplication. Finally, I will work to 
better leverage other sources of support, from the American private 
sector to other donors and partners.

    Question 15. If confirmed, will you work to protect and restore 
USAID's budget and preserve resources for its critical development 
efforts?

    Answer. If confirmed, my first obligation is to the American 
people. They have many priorities that the President is working 
diligently to address with limited resources, but certainly, I'll be 
committed to ensuring that USAID operates in the most effective, 
efficient way possible; raises the bar even higher on accountability 
and transparency; and preserves development gains. While recognizing 
that we will never have enough resources to do everything we would 
like, I commit to working with you, if I am confirmed, to build support 
and resources for critical development priorities.

    Question 16. What do you believe the impact would be to USAID's 
global health, food security and humanitarian programs if the FY18 
budget cuts to these programs were realized?

    Answer. I was not involved in the creation of the Fiscal Year (FY) 
2018 budget request. However, if I am confirmed, I look forward to 
being briefed on the specifics of the request, as well as how the 
administration is looking to prioritize efficiencies and preserve 
development gains. As I mentioned in my written statement, I also have 
my own ideas on efficiency and effectiveness, and look forward to the 
opportunity to be able to bring them to the discussion. Moreover, if 
confirmed, I commit to working with you to address these and other 
critical development needs as effectively and efficiently as we can.

    Question 17. How would you seek to mitigate the consequences of the 
FY18 budget's proposed closure of 37 USAID missions around the world? 
What are the legal steps required to close a Mission?

    Answer. As you are aware, USAID is rightly being asked to do more 
with less. We need to focus on our core priority--advancing America's 
interests through foreign assistance. Everything USAID works on should 
directly improve humanitarian and development outcomes, and be designed 
to lead to the day when each recipient country can take responsibility 
for its citizens' wellbeing. We also need to continue partnerships with 
other donor countries, and develop new partnerships with the private 
sector to leverage additional resources. I understand that no final 
decisions have been made with respect to the closure of specific 
Missions, and I have not been briefed on what legal steps would be 
required to close a Mission. Nonetheless, in the event of the closure 
of any Missions, I commit to following all legally required steps to 
accomplish that goal.

    Question 18. How would you propose the U.S. maintain its 
commitments to the countries where the budget proposes to end USAID 
missions? How would you seek to transition countries off of U.S. 
assistance?

    Answer. The Fiscal Year (FY) 2018 budget acknowledges that our aid 
must be more effective and efficient, and that advancing the national 
interests of our country must always be our primary mission. To that 
end, if confirmed, I commit to working with my colleagues at the 
Department of State and throughout the inter-agency to ensure that we 
maintain U.S. leadership in the world, and that everything we do 
advances our national interests.
    As indicated in my written statement, I also believe we need to 
signal to our implementing partners that U.S. assistance is not open-
ended or inevitable or, most important, a substitute for what they must 
take on themselves. Every program should look forward to the day when 
it can end. So, if confirmed, I will ask every USAID Mission to 
evaluate how each program dollar moves a country closer to that day. We 
should emphasize programs that incentivize local capacity-building and 
implementation, mobilize domestic resources, and ensure that our host-
government partners can take control of their own futures.
    USAID has transitioned or closed a number of Missions in the past 
and I will review what has previously been done. However, if I am 
confirmed, and in consultation with members of the committee, I would 
look to craft plans for sustainability that provide for an ongoing 
partnership between USAID and any host country in which we move away 
from our traditional foreign-assistance model.

    Question 19. If confirmed, will you prioritize funding for 
democracy promotion and human rights?

    Answer. Yes.

    Question 20. Do you believe it is in the U.S. national interest to 
fund foreign assistance programs intended to mitigate conflicts and 
prevent mass atrocities? What will you do to strengthen existing 
atrocity prevention initiatives within USAID?

    Answer. Yes, I believe it is in the U.S. national interest to 
support such programs. If confirmed, I will support current programming 
that mitigates atrocity risks and builds resilience in fragile states. 
But, I will also support new approaches based upon quantitative and 
qualitative analyses of the drivers of such conflicts. Furthermore, I 
will continue to support USAID's leadership in responding to atrocity 
situations with life-saving humanitarian assistance.
    I understand that USAID's leadership participates in interagency 
policy processes that monitor and address the warning signs for mass 
atrocities through both diplomatic and development channels. If I am 
confirmed, I will ensure USAID continues to strengthen collaboration 
with interagency partners and multilateral institutions in this regard. 
With these combined efforts, USAID can reduce the risks of future 
crises before the options narrow and costs increase, saving, I hope, 
millions of lives and billions of dollars.

    Question 21. How will expand USAID's current initiatives to ensure 
that people with disabilities remain at the forefront of the global 
development agenda?

    Answer. It is critical that inclusive programming remain at the 
forefront of USAID's work, as fifteen percent of the world's population 
has a disability, and 80 percent of this population resides in 
developing countries. To be effective, USAID programs must provide 
equal access to resources and opportunities, and all persons need to be 
able to participate meaningfully in their communities, without facing 
discriminatory practices. If confirmed, I will continue USAID's efforts 
to advance these goals by providing technical assistance to our field 
Missions, strengthening the local capacity of organizations of people 
with disabilities to expand their reach, and collaborating with host-
country governments, civil society and multilateral institutions to 
improve national disability laws and policies, as resources allow.

    Question . What will you do to ensure that USAID is reaching 
vulnerable LGBTQ populations in the areas where USAID is doing its 
work?

    Answer. I share your concern, and I am troubled by the violence 
against LGBTQ and other marginalized communities around the world. As I 
said in my hearing before the committee, USAID needs to ensure that its 
programming reaches all marginalized people. No country can be a 
vibrant democracy if it is not listening to all of its voices. If 
confirmed, I will continue USAID's long tradition of advocating for the 
human dignity and peaceable treatment of all people, especially 
marginalized and vulnerable populations.

    Question 23. As USAID Administrator, will you support U.S. food 
assistance programs utilizing various modalities, including, when and 
as appropriate, monetary transfers, vouchers, and in-kind contributions 
from the United States, in order to assist hungry people around the 
globe with the most appropriate and timely means available?

    Answer. Yes.

    Question 24. The President's budget request and its proposals to 
eliminate entire accounts that reduce food insecurity--such as Food for 
Peace Title II and McGovern-Dole Food for Education Program--comes at a 
time when famine conditions threaten 30 million people in Africa and 
the Middle East. These different accounts reflect different contexts--
such as development and humanitarian assistance--as well as different 
modalities that can prove especially useful in certain contexts. How 
would you ensure we have access to the greatest number of modalities, 
and the flexibility to use the tools most appropriate when needed to 
address these challenges?

    Answer. I understand that, in response to situations of food 
insecurity, USAID aims to use the right tools, in the right place, at 
the right time, and that the Agency's food-security team relies on the 
flexibility provided by Congress to pursue this approach so that the 
choice of tool in any given situation depends on what they deem most-
effective based on the conditions on the ground. By way of 
illustration, in recent years, USAID has utilized U.S.-purchased 
commodities in Yemen, locally procured grains in Uganda, and electronic 
vouchers for Syrian refugees in Jordan.
    Market-based interventions can help promote recovery, strengthen 
and expand market linkages, encourage local trade, and stimulate an 
appropriate production response from farmers in developing countries. 
For example, the food-voucher program for Syrian refugees not only 
provides food to those who need it, but also has a crucial secondary 
benefit of helping the local economy and creating jobs. As I understand 
it, food-voucher program for Syrian refugees has injected more than 
$1.7 billion into the economies of Syria's neighbors, and has created 
more than 1,300 new jobs since it began.
    Under the President's Fiscal Year (FY) 2018 budget request, I 
understand the International Disaster Assistance account will provide 
support for the local and regional procurement of agricultural 
commodities, the procurement of U.S. commodities, cash transfers, food 
vouchers and complementary activities that support the relief, recovery 
and resilience of populations affected by food crises. Given the 
growing complexity and the current number of global humanitarian 
crises, having the flexibility to choose among a range of authorized 
tools will ensure USAID responds most effectively, with the greatest 
impact.

    Question 25. If confirmed, how will you bring to bear the expertise 
of USAID to address longer term issues that present the potential to 
destabilize communities, such as drivers of conflict, drivers of 
migration, and food insecurity?

    Answer. If confirmed, I look forward to using and building on the 
tools USAID has to identify and address the drivers of conflict and 
fragility, and to mitigate them before they destabilize communities. I 
understand that in the leadup to the 2016 elections in Kenya, USAID 
worked throughout the country to prepare for potential violence by 
designing and implementing programs to help address a range of 
identified drivers, reduce inter-communal conflict, and build 
confidence in local governments. I am told that USAID believes these 
efforts helped lower the risk of post-election violence in an important 
U.S. national-security partner in the Horn of Africa.
    Interventions such as those used around the Kenyan elections seek 
to address root causes upstream, and to bolster communities against the 
dysfunction, instability and conflict that can emerge in fragile 
states. If confirmed, I will work to strengthen and further refine 
these tools, and to invest resources into enhancing USAID's ability to 
analyze and assess the unique drivers in each country's context. 
Preventing conflict is obviously preferable to responding after 
conflict is well underway.

    Question 26. How will you balance prevention efforts, such as 
building resilience and conflict mitigation, when the humanitarian 
needs are enormous?

    Answer. This is a challenge, but prevention investments in 
agriculture, food security, health, and human capital, as well as the 
management of disasters, natural resources, and conflict can be cost-
effective means of reducing future humanitarian needs. A recent study 
in Kenya and Ethiopia by the Department for International Development 
of the United Kingdom found that every $1 invested in resilience will 
result in $2.90 in reduced humanitarian spending, as well as improved 
poverty, hunger, and malnutrition outcomes.
    For example, in one community in Malawi, responding to urgent, 
life-saving needs cost an average of $390 per person during the 2016 
drought induced by the El Nino weather phenomenon. By contrast, a 
community in which USAID invested roughly $376 per person over five 
years did not require food assistance. Over the long-term, the savings 
of investing in community resilience can be extraordinary.
    USAID's strategic approaches are helping shift the burden for 
making these investments and managing these risks from external donors, 
including USAID, to the Governments and communities themselves. If 
confirmed, I will continue to ensure that we balance the need to 
respond to immediate life-saving, humanitarian needs, while partnering 
with governments who are helping themselves, to make the strategic 
investments in resilience that are needed to reduce this liability in 
the future.

    Question 27. If confirmed, how would you plan to support the 
integration and expand proven, successful initiatives such as the 
Community-Based Management of Acute Malnutrition (CMAM) and Infant 
Young Child Feeding (IYCF) programs to combat wasting in order to save 
the lives of children suffering from acute malnutrition?

    Answer. USAID's Infant and Young Child Feeding and Community 
Management of Acute Malnutrition are cornerstones of its successful 
maternal and child health and nutrition programs. If confirmed, I will 
continue to support these programs, but I will also seek ways to use 
data to improve them, and to build the capacity of host-country 
partners to take these initiatives on themselves.

    Question 28. Should global food security remain a priority focus of 
United States Government development assistance funding? Will you 
commit to continuing to implement the Global Food Security Strategy, 
including support for the complementary strategies and investments 
listed in appendix 3 of the strategy?

    Answer. Yes, global food security should remain a priority focus. 
Thanks to Congressional leadership, the Global Food Security Act of 
2016 affirmed the United States' leadership and commitment to combating 
the root causes of hunger and poverty in an accountable and effective 
way. If I am confirmed, I will continue to implement the Global Food 
Security Strategy.

    Question 29. How do you envision the United States benefitting from 
promoting international education programs that invest in developing 
the minds of the world's most at-risk and vulnerable children? How do 
you prioritize USAID initiatives such as Let Girls Learn and Global 
Book Alliance? What will you do as the incoming USAID Administrator to 
ensure that USAID is resourced adequately to tackle the global 
education crisis?

    Answer. Education in the developing world is near and dear to my 
heart. My first steps in development were as a volunteer teacher in 
East Africa. My first overseas trip as a Member of Congress was to Mali 
and Ghana to review education programs for girls in those two 
countries. In other words, I agree that improving education 
opportunities for vulnerable populations and strengthening education 
systems accelerates economic growth, strengthens communities, and 
reduces instability that often fuels war, conflict, and extremism. 
Education is a foundational driver of development--the sustainability 
of investments across all sectors requires skilled populations that are 
capable of leading and managing their own future.
    When we invest in women and girls, including in their literacy and 
numeracy, we accelerate progress--toward a safer, more-secure and more-
prosperous world. If I am confirmed, I will make sure we remember this 
principle.
    At the same time, we need to take a strategic, comprehensive 
approach to address the global education crisis. We will never have 
enough funding to solve every problem. This means we must extend our 
reach through partnerships, promote domestic resource-mobilization and 
encourage investment from a range of organizations, including the 
private sector. If confirmed, I will be looking into this issue 
further.

    Question 30. Please describe how you will advance the rights of 
women and girls around the world through USAID programming so as to 
further American leadership and further help empower women and girls 
globally.

    Answer. When we invest in women and girls, we accelerate progress 
toward a safer, more-secure and more-prosperous world. USAID has become 
a recognized global thought-leader, innovator, and convener in gender 
equality and women's empowerment, and is well-positioned to continue 
advancing women's and girls' equality in the countries where the Agency 
works. Since I returned from Tanzania in 2009, I have been committed to 
organizations that foster women's participation in civil society, and 
the defense of their civil and human rights. If confirmed, I will bring 
that focus and priority with me to USAID.

    Question 31. How will the goal of helping empower women and girls 
be reflected within the leadership, architecture, and institutional 
policies of USAID?

    Answer. When we invest in women and girls, we accelerate progress 
toward a safer, more-secure and more-prosperous world. If confirmed, I 
will look for ways USAID can increase women's empowerment by broadening 
access to human, financial, social and physical capital. I believe that 
USAID needs to continue to innovate to ensure the Agency remains on the 
cutting edge of programming to reduce gender disparities for women. I 
also believe that the U.S. National Action Plan on Women, Peace and 
Security and the United States Strategy to Prevent and Respond to 
Gender-Based Violence Globally should continue to inform USAID's 
programming. Finally, I will ask our program-design teams to seek out 
new ways to advance the goal of empowering women within the sectors and 
countries where USAID works, and to improve our measurement of the 
outcomes and impact of our investments.

    Question 32. How will USAID ensure local organizations continue to 
have a meaningful role in advancing our international assistance to 
promote gender equality and women's rights?

    Answer. If confirmed, I will work with all partners--donors, host-
country governments, multilateral agencies, the private sector, and 
local organizations, including civil society and non-governmental--to 
promote gender equality and women's empowerment. Local organizations 
are critical to advancing USAID's work on gender equality and women's 
empowerment, just as understanding the local context, and engaging 
communities is vital to promoting sustainable change. I understand that 
in the design of the Agency's programs, policies and procedures call 
for plans to provide inclusive, meaningful and consistent engagement 
with local actors, including those focused on gender equality and 
women's empowerment. If confirmed, I will ensure this practice 
continues.

    Question 33. How should USAID address its internal barriers to 
implementing more effective programs to protect children and youth from 
violence and exploitation around the world? What measures will you take 
to collaborate with the State Department to prevent and respond to 
violence and exploitation against children?

    Answer. If confirmed, I will ensure that USAID remains a global 
leader in protecting children and youth from violence. I support 
efforts to strengthen USAID's efforts to address violence against 
children and youth through the Global Partnership to End Violence 
Against Children.
    Success in these endeavors requires continued engagement with 
interagency partners, including the State Department, as well as the 
Departments of Health and Human Services and Labor. If confirmed, I 
will ensure USAID continues its close coordination with partners, 
including host-country governments, multilateral institutions and civil 
society, so that the U.S. Government's collective work aimed at 
preventing violence and exploitation against children and youth is 
complementary, collaborative, results-focused and sustainable.

    Question 34. How much of USAID's assistance is currently 
specifically targeted towards anti-corruption programs and activities?

    Answer. First, I would like to acknowledge the attention you have 
devoted to this issue. Corruption is not only a financial problem, 
but--as we heard during the hearing you held on this subject last 
year--creates an environment of resentment and hatred for authority 
that can foster violent extremism and terrorism. Corruption remains a 
tremendous obstacle to political, social, and economic development, and 
is a symptom of a broader pattern of poor governance, weak institutions 
and impunity. To fight corruption effectively, we need diplomacy, 
international law-enforcement efforts, and development assistance to 
work together as part of a global anti-corruption effort.
    I understand that USAID currently spends approximately $1 billion 
annually on its ``good governance'' programs, which include most USAID 
anti-corruption activities.
    I understand the Agency also funds other anti-corruption activities 
from different budget lines, and, if confirmed, I look forward to being 
briefed on these activities. I would welcome the opportunity to work 
with you to best focus USAID's resources and attention on anti-
corruption activities.
    I believe that corruption, including the generalized subvention of 
government by elites that the democracy community terms 
``kleptocracy,'' is a significant barrier to inclusive economic growth 
in many parts of the world. I am encouraged by some of the new 
corruption-assessment tools being developed, and, if confirmed, I would 
support the deployment of these new tools in appropriate settings.

    Question 35. What will you do to see to it that our aid programs 
help developing countries combat corruption and hold corrupt officials 
accountable, if confirmed?

    Answer. Corruption remains a tremendous obstacle to political, 
social, and economic development around the world. It usually is a 
symptom of a broader pattern of poor governance, weak institutions and 
impunity. To fight corruption effectively, we need diplomacy, 
international law-enforcement efforts, and development assistance to 
work together as part of a global anti-corruption effort. If confirmed, 
USAID's anti-corruption programs will remain a top priority for me, and 
I look forward to working with you on this important issue. I will 
ensure strong coordination of USAID's efforts with those of other U.S. 
Government departments and agencies, multilateral institutions, and 
private-sector actors to ensure the best, most-effective use of 
taxpayer dollars in our collective fight against corruption.

    Question 36. What role should USAID play in promoting grass roots 
reconciliation and funding activities that support healing the conflict 
in South Sudan?

    Answer. Conflict takes human lives, destroys communities and their 
livelihoods, erodes development gains, and leaves a legacy of fear, 
hostility, and trauma. Without effective, inclusive peace and 
reconciliation processes, countries are likely to revert back to 
violence.
    I understand that USAID is supporting reconciliation programs in 
South Sudan, at both the national and grassroots levels, to prevent the 
spread of violence and calm tensions. This work provides opportunities 
for antagonists to address issues, reconcile differences, and work on 
common goals with regard to potential, ongoing, or recent conflict.
    In addition, decades of conflict in South Sudan, exacerbated by the 
ongoing violence and atrocities against civilians, have resulted in 
severe trauma. I understand that USAID trauma-awareness programs work 
with communities to understand how trauma has perpetuated historical 
tensions, and to begin to bridge these divides, thereby paving the way 
for reconciliation.
    South Sudan is the world's most-fragile state, and is an ongoing 
tragedy of immense proportions. If confirmed, I hope that my first 
major trip as Administrator will be to South Sudan, so that I can see 
for myself some of the problems there, as well as meet with some of 
USAID's partners in the relief and reconciliation process.

    Question 37. Given the wealth of rigorous evidence available about 
what works in HIV programming, how can you assure the American people 
that these cuts will not reverse the gains we've seen globally in 
mitigating the impact of HIV nor increase HIV-related deaths worldwide?

    Answer. I understand Secretary Tillerson recently signed a 
memorandum that asked the Office of the Global AIDS Coordinator (OGAC) 
to devise a strategy to control the HIV/AIDS pandemic in 13 priority 
countries of the President's Emergency Plan for AIDS Relief (PEPFAR). 
If confirmed, I look forward to being briefed on the specifics of this 
strategy, as well as on how the administration is planning to 
prioritize efficiencies and preserve gains already made against HIV/
AIDS in many countries. In the future, USAID should continue to support 
OGAC in its focus on the geographic regions and populations that are 
most at risk--which can provide for the greatest impact with every 
dollar invested, and interrupt the specific dynamics of transmission 
that are fueling the epidemic. Furthermore, if confirmed, I will seek 
ways to optimize the coordination of all of our global health programs 
with the Departments of State, Defense, Health and Human Services and 
multilateral institutions to make our limited resources go even 
further. Finally, I will work to support sharing financial 
responsibility with partner governments to better ensure the 
sustainability and impact of our HIV/AIDS efforts. As one of the 
original Congressional supporters of PEPFAR, I can assure you that our 
battle against HIV/AIDS is important to me personally, and I am looking 
forward to the day we can reverse the tide of the disease.

    Question 38. With a 15 percent reduction in resources as proposed 
in the FY18 budget, how would current HIV/AIDS patients stay on 
treatment, and not result in a reversal in trends where the number HIV/
AIDS contractions and deaths start increasing?

    Answer. I refer you to the Department of State's Office of the 
Global AIDS Coordinator on the specifics of the Fiscal Year 2018 budget 
request for the President's Emergency Plan for AIDS Relief (PEPFAR). I 
understand the funding request would continue support for the current 
levels of patients on HIV/AIDS treatment. Again, as an original 
supporter of PEPFAR, and an ambassador who oversaw one of the world's 
larger PEPFAR programs, this is a cause that is important to me.

    Question 39. How does the budget's proposed cuts to malaria 
prevention advance U.S. economic security and prosperity?

    Answer. If confirmed, I look forward to being briefed on the 
specifics of the administration's Fiscal Year 2018 budget request, as 
well as how the administration is looking to prioritize efficiencies 
and preserve the gains the President's Malaria Initiative (PMI) has 
achieved in many countries in Africa. As a survivor of malaria myself, 
and someone who lost students to malaria, if confirmed, I will work 
hard to build upon PMI's record of success.

    Question 40. Do you think it is important that USAID is working 
with the nations of West Africa to build systems to prevent, detect and 
respond to any future Ebola and other pandemic outbreaks?

    Answer. Yes. The Ebola epidemic demonstrated exactly why events in 
developing countries should matter to Americans. A viral outbreak in a 
remote corner of Guinea nearly brought three countries to the point of 
collapse, and sowed fear and panic in Dallas, Texas, and across the 
world.
    The Ebola crisis also demonstrated the need to build healthcare 
capacity in developing countries, as well as the need for early 
identification of outbreaks of infectious disease, the rapid 
declaration of Public Health Emergencies of International Concern, and 
rapid response to events that involve dangerous pathogens. Such efforts 
are instrumental to stopping an outbreak of a lethal, contagious 
disease at the source, which is critical to prevent or minimize the 
spread of, and subsequent deaths from, an epidemic. I understand that 
USAID, along with non-governmental implementing partners, continues to 
work with the nations of West Africa to strengthen their healthcare 
systems, services, and health-security measures.

    Question 41. How do you envision USAID's global health programs 
partnering with Gavi and other organizations to reduce child mortality 
and to reduce the dangers of infectious diseases from impacting the 
United States and other countries around the world?

    Answer. USAID's partnerships in global health, both within the U.S. 
Government, including under the President's Malaria Initiative (PMI) 
and the President's Emergency Plan for AIDS Relief (PEPFAR), and with 
other organizations--such as Gavi, the Vaccine Alliance; the Global 
Fund to Fight AIDS, Tuberculosis and Malaria; and the Global Polio 
Eradication Initiative (GPEI)--have made, and will continue to make, 
critical contributions to reducing child mortality and the dangers of 
infectious disease. Partnerships such as Gavi help to leverage other 
donor resources to ensure that cost-effective, life-saving solutions 
can reach more children and reduce the impact of infectious disease 
worldwide.
    The experiences in recent years with outbreaks of novel infectious 
diseases, such as Ebola, Zika, Severe Acute Respiratory Syndrome, 
Middle East Respiratory Syndrome, and H1N1 influenza have also 
demonstrated that emerging infectious diseases that originate in other 
parts of the globe can quickly become homeland-security threats. USAID 
should continue to partner with the Departments of Agriculture, Health 
and Human Services and State, the World Health Organization, the United 
Nations Food and Agriculture Organization, and World Organization for 
Animal Health, and other key stakeholders, to further USAID's 
investments in strengthening the capacity of local and national 
institutions around the world, which will help prevent and detect 
outbreaks of dangerous infectious diseases.
    If confirmed, I will closely with the White House Global Health 
Security Agenda and interagency team to strengthen public health 
capacity in critical hot spots.

    Question 42. Will you commit to ensuring that ending preventable 
deaths of mothers and children remains a USAID priority?

    Answer. Yes.

    Question 43. What correlation do you see between national security 
and improved maternal and child health?

    Answer. Any time that we are able to promote stability and social 
integration in a community, we are helping to immunize it against at 
least some of the potential drivers of despair, one the most 
significant being the preventable loss of mother or child. In a time 
when extremists are looking to exploit despair, alienation and 
marginalization, that effort is helpful in our broader struggle against 
extremism. Furthermore, humanitarian assistance and strategic 
investments in health, can help improve our national security by 
strengthening our relationships with people around the world, 
particularly in conflict-prone areas.

    Question 44. If confirmed, how will your pro-life voting record and 
views on family planning effect your decision making on related health 
issues that are a part of USAID's work?

    Answer. I have been a strong supporter of global health programs 
throughout my career, and I understand the importance of women's health 
issues, including voluntary family-planning programs that are 
implemented consistent with the law, available resources, and the 
Presidential Memorandum issued on January 23, 2017. I was part of the 
team that crafted key development health initiatives like the 
President's Emergency Plan for AIDS Relief (PEPFAR) and the President's 
Malaria Initiative (PMI), and, if confirmed, I will remain fully 
committed to advancing these programs that save women's lives.

    Question 45. How do you plan to structure USAID global health 
investments to help recipient countries move towards sustainable, 
domestically-financed health programs, increasing country ownership of 
such programs while maintaining U.S. leadership in global health?

    Answer. I understand that transitioning programs to the management 
and financing of partner countries is an explicit goal of all USAID 
global health investments. Because USAID works with countries in 
different stages of development, there is no one-size-fits-all model 
for health care and financing, and the Agency should tailor its global 
health investments to an individual country's needs, with a focus on 
sustainability, and a goal of self-sufficiency.

    Question 46. How will you build on USAID health successes and work 
with partners to address persistent systems barriers like the need for 
more trained and supported frontline health workers?

    Answer. As I indicated in my written statement, I believe ``the 
purpose of foreign assistance should be ending its need to exist.'' 
That means that, if confirmed, I plan to assist governments and civil 
society in partner countries to strengthen their own ability to manage 
their health systems. I would look to incentivize partner governments 
to adopt key reforms, including task-shifting, and, as permitted by 
available resources, provide assistance for training and equipping 
frontline health workers to do more to support communities and save 
lives.

    Question 47. How will USAID prioritize the stability of funding for 
disaster risk reduction in countries facing significant natural hazards 
and the need for investment in preventative measures that save lives, 
build resilience, and are cost effective?

    Answer. USAID's work in disaster risk reduction over the past 30 
years has demonstrated clear results in increasing the capacity of 
countries to respond to their own calamities and to those that affect 
their neighbors. For example, I understand that following the 
earthquake in Ecuador in 2016, 73 percent of the search and rescue 
personnel who responded from neighboring countries such as Chile and 
Peru were trained by the United States. As a result of these regional 
interventions, the U.S. Government did not need to deploy its own 
search-and-rescue teams to respond.
    I understand that USAID recognizes that national and local entities 
can play a key role in responding to emergencies. The main goal of the 
Agency's programs should go beyond strengthening its own ability to 
respond to emergencies overseas, and extend to helping communities 
across the world become more resilient themselves to disasters and 
better able to deal with their impact. Relatively small investments in 
disaster risk-reduction can pay huge dividends in helping partner 
countries build capacity and resiliency. If confirmed, I will continue 
to support these efforts.

    Question 48. How will you ensure USAID upholds its commitments to 
developing and implementing a Global Water Strategy (as required by the 
2014 Water for the World Act) that addresses how the U.S. will increase 
access to safe drinking water and sanitation and hygiene services, 
improve the management of watersheds and water resources, and mitigate 
or resolve water-related conflicts?

    Answer. I agree that a comprehensive water strategy is critical to 
achieving results in this very important sector. If confirmed, and once 
fully briefed on the details of the Global Water Strategy, I look 
forward to working with Congress to address the intersection of water, 
sanitation and health.

    Question 49. What criteria will you use to prioritize the 
allocation of humanitarian assistance?

    Answer. Thanks to the generous support of Congress, the United 
States is the world's leading provider of humanitarian aid by sheer 
volume, and works in partnership with other donor governments, 
multilateral agencies, non-governmental organizations, local relief 
groups and others to respond to an average of 65 disasters in more than 
50 countries every year.
    I understand that USAID's two emergency-response offices, the 
Office of Food for Peace and the Office of U.S. Foreign Disaster 
Assistance, continuously monitor humanitarian needs worldwide and make 
emergency funding decisions on a rolling basis, to provide life-saving 
assistance where it is most needed today, while also meeting and 
mitigating anticipated emergency needs several months in the future. I 
am told they rely on a variety of tools to determine need and 
vulnerability and guide the prioritization of resources, including 
information from field staff, partner reporting, and forecasting from 
the Famine Early Warning Systems Network (FEWS NET).
    Unfortunately, humanitarian needs always exceed available global 
resources, and USAID will never be able to provide as much assistance 
as we would all like. Difficult trade-offs, such as prioritizing 
immediate action at the expense of longer-term resilience and 
development activities, might need to be made.
    Recognizing that the U.S. Government cannot meet global 
humanitarian needs alone, and should not try to do so, USAID engages 
with fellow donors and actors in the international humanitarian 
architecture to seek their assistance and collaboration. Sustained U.S. 
humanitarian leadership, both diplomatic and financial, is critical for 
continued engagement from both traditional and emerging donors. The 
good news in this regard is that donors such as Japan and Germany have 
recently increased their support for humanitarian assistance. If 
confirmed, I intend to use my experience as both a diplomat and a 
Congressman to press donor counterparts for both more funding and a 
more-efficient coordination of effort. I also intend to turn to other 
potential funding sources, including traditional and emerging donors, 
as well as the private sector.

    Question 50. How will you ensure that humanitarian assistance goes 
to the most vulnerable, regardless of location?

    Answer. If confirmed, I will work hard to coordinate with the 
Department of Defense and multilateral organizations to secure safe 
access to areas of humanitarian need. Beyond that, as Administrator of 
America's lead development and humanitarian-assistance agency, I would 
work relentlessly to highlight areas of greatest humanitarian need, 
wherever that might be at any moment.

    Question 51. How will you protect humanitarian assistance from 
political/security/economic priorities of other United States 
Government entities?

    Answer. The United States prioritizes humanitarian assistance based 
on need, whether that need arises from a man-made or natural disaster. 
While foreign assistance fulfills multiple objectives, some of which 
are strategic, political and/or economic, the U.S. Government has 
always targeted humanitarian assistance itself towards those most in 
need. Furthermore, humanitarian assistance should not be considered a 
substitute for political solutions in man-made crises. To do otherwise 
risks politicizing that assistance, which, among other things, puts aid 
workers at increased risk.
    If confirmed, I will ensure USAID continues to work with 
implementing partners committed to the humanitarian principles of 
neutrality, impartiality, and independence.

    Question 52. Do you intend to push back on OMB's intended 
withholding of humanitarian relief funds to meet the exceptional levels 
of humanitarian need globally?

    Answer. I have not been briefed on the situation to which you are 
referring. But, if I am confirmed, I commit to working to ensure we are 
providing humanitarian assistance as quickly and effectively as 
conditions permit.

    Question 53. How would you work at USAID--and with Congress--to 
ensure that the U.S. takes a forward looking, multi-year approach to 
its response to humanitarian crises where possible?

    Answer. Unfortunately, there is little chance that needs arising 
from current humanitarian emergencies will decline in the near future. 
The situations in Syria, Iraq, South Sudan, and Yemen represent what 
has become the norm--protracted, man-made, large-scale crises driven by 
conflict. In just over a decade, the number of people in need of 
humanitarian aid has more than doubled. I understand that the Famine 
Early Warning System Network indicates Somalia, Yemen, and Nigeria 
could fall into famine this year, and the United Nations has already 
declared famine in South Sudan.
    The U.S. Government funds partners in a reliable, timely manner, 
through arrangements that help to ensure continuity of assistance. If 
confirmed, I will continue to support USAID's mission to provide life-
saving humanitarian assistance through, where feasible and appropriate, 
a multi-year approach in the American response, while adapting our 
responses to the crises of today and making the most of taxpayer 
dollars.

    Question 54. What are the greatest needs facing Iraqis and Syrians 
returning to areas liberated from ISIS?

    Answer. While, if confirmed, I will be in a much better position to 
respond to this question, I understand that more than 531,000 Iraqis 
have been displaced since the start of the campaign to retake Iraq's 
city of Mosul from ISIS. As the campaign in Syria to retake the city of 
Raqqah intensifies, potentially tens of thousands more will be forced 
to flee their homes. I understand that the U.S. Government and its 
partners continue to assist these populations as they escape from ISIS-
held areas, through the provision of medical care, food, and emergency 
commodities. Assistance also continues in camps and emergency sites, as 
well as areas of return in eastern Mosul, despite continued insecurity.
    Many of those displaced would obviously like to return home. 
Security is the most-critical factor for returns--especially as ISIS 
leaves behind unexploded ordnance, improvised explosive devices (IEDs), 
and booby traps. The greatest stabilization needs are for immediate 
repairs to basic infrastructure, the creation of jobs, the extension of 
small-business loans, and the creation of medium-term programs that 
rehabilitate transport corridors among liberated cities and incentivize 
additional displaced persons to return. Working to ensure there are 
safe, habitable places for the displaced to return, with opportunities 
for the future, will help provide normalcy and stability, as well as 
further weaken ISIS's hold. Despite challenges, tens of thousands of 
people are returning to liberated areas, including an estimated 145,000 
people to liberated parts of Mosul so far. I understand that USAID is 
supporting those returnees with humanitarian assistance, and as 
programs transition from relief to early recovery, will make longer-
term investments in infrastructure and livelihoods.

    Question 55. Should the U.S. Government assist in the stabilization 
of post-ISIS areas?

    Answer. I know that we will want to help as best as we can, but our 
overall policy is developed by more than just USAID, so I'll wait to 
consult more broadly within the U.S. Government before providing a more 
fulsome answer.

    Question 56. What more can and should the United States do to 
ensure that conflict parties refrain from causing harm to civilians and 
exacerbating already severe humanitarian catastrophes while conflicts 
are ongoing?

    Answer. I agree the U.S. Government should do whatever it can to 
ensure that combatants do not target civilians in and around conflict 
zones. I understand that the U.S. Government uses de-confliction 
processes with armed actors, where appropriate, to help avoid any 
unintentional targeting of humanitarian assistance or innocent 
civilians. The State Department and USAID continually urge all parties 
in conflict areas to respect international humanitarian norms, and to 
allow for unfettered access of aid to reach civilian populations. If 
confirmed, I will be a strong advocate on these issues.

    Question 57. What is the role of the United States to ensure 
compliance with UN Security Council Resolution 2286 to document and 
conduct investigations of attacks on health workers and facilities?

    Answer. I refer you to the U.S. Mission to the United Nations on 
the specific question of UN Security Resolution 2286. However, as the 
President of the International Republican Institute (IRI), the safety 
and security of my people on the ground is something I worry about 
every day. As you know, IRI carries out programs and activities in 
places where democracy advocates are often targeted for intimidation. 
Similarly, I know that USAID takes safety and security of its staff and 
implementing partners very seriously. If confirmed, I will continue to 
make this a priority for the Agency. More broadly, I am troubled by 
reports over the past several years of persistent attacks on health 
facilities, medical staff, and humanitarian personnel in conflict 
zones. Consequently, if confirmed, I will work with my colleagues at 
the Department of State and the rest of the interagency on this very 
important issue. Furthermore, if I am confirmed, I will take steps to 
make sure that USAID calls on all parties to prevent attacks, that it 
pushes for timely and appropriate channels for the investigation of 
reports of violence, and that it insists upon prosecution of any 
individuals responsible for intentional attacks.

    Question 58. What is your assessment of the last 15 years of the 
counterterrorism/countering violent extremism efforts and why they have 
largely failed?

    Answer. Not every question or challenge can be entirely addressed 
through a development lens, so this question can only be fully 
addressed in conjunction with other voices from the security sector and 
beyond. Furthermore, I agree with those who have opined that taking on 
violent extremism is a sweeping challenge for our time, one without 
simple answers or quick fixes. Violent extremism is not merely an idea 
to be challenged or countered, but something used by terribly dangerous 
individuals and groups who seek to end our way of life. We not only 
have to counter an ideology, but also defeat the evil practitioners of 
that ideology as well.
    What USAID can bring to these challenges are tools that can help us 
understand and address the drivers of extremism in many settings. With 
years of on-the-ground experience, the Agency is particularly suited to 
leading this analysis in many places, and then designing interventions 
and initiatives that can, in some cases, counter violent extremism. But 
more important, armed with good analysis, USAID can build resilience in 
communities to prevent or limit the expansion of extremist ideology, or 
help communities recover from the devastating effects of the battles 
extremists wage.

    Question 59. Under your leadership, how would U.S. counter violent 
extremism efforts seek to address citizens grievances, including 
security sector abuse, exclusion, and inequality?

    Answer. I understand that USAID's existing programs to counter 
violent extremism focus on addressing core grievances that extremist 
organizations seek to exploit, as well as contest their promotion of 
intolerance in the larger public.
    If confirmed, I will continue to encourage this focus. We will 
pursue prevention (advocating for these causes), accountability 
(investigating and holding perpetrators to account) and support for 
those aggrieved.

    Question 60. How can we bring real evidence and metrics to measure 
whether our counter violent extremism efforts are making an impact in 
reducing levels of support for violence?

    Answer. I understand that USAID is constantly gathering both 
quantitative and qualitative data to design, monitor, and evaluate its 
programming to counter violent extremism. If confirmed, I will seek to 
use those findings in both country- and context-specific analyses and 
surveys, among other tools, to measure the impact of these very 
important programs. We must be careful not to jump to conclusions on 
the drivers of extremism in any context. But, instead, undertake an 
informed, qualitative, analytical approach that enables us to tailor 
our approach to local and regional conditions.

    Question 61. What will USAID do, under your leadership, to ensure 
Burma's democratic transition and prospects for sustainable development 
are not undermined by the military's continued role in the economy and 
politics?

    Answer. I have had the honor of visiting Burma on a couple of 
occasions. While the elections two years ago were a historic victory 
for both the people of Burma and the cause of democracy, they were 
merely the beginning of a journey to a truly citizen-centered, citizen-
responsive society. To sustain the gains of Burma's democratic 
transition, if confirmed, I will work to accelerate USAID's efforts to 
strengthen democratic institutions, including Parliament, the 
judiciary, and civil society; foster national reconciliation and peace; 
and improve the lives of the Burmese people by increasing access to 
better health services, economic opportunities, and, when needed, 
humanitarian assistance.

    Question 62. Given that USAID supports Burma's peace process 
through the Joint Peace Fund, will it endorse the recommendations of 
more than 135 civil society organizations calling for a new approach to 
natural resource management in the country as a way to address one of 
the root causes of the conflicts and build a better future for Burma's 
people?

    Answer. I agree that challenges with access to, and management of, 
natural resources are having a dangerous effect upon ethnic conflict 
and strife in Burma. Working with civil society is a key component of 
USAID's development strategy, and the U.S. Government currently 
supports non-governmental organizations in Burma on a wide array of 
development issues. If confirmed, I commit that USAID will engage with 
the 135 civil-society organizations that are calling for a new approach 
to natural resource-management in Burma, and identify areas where we 
can work effectively together on this very important issue.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to Mark Green by Senator Johnny Isakson

    Question 1. I have long been supportive of efforts to engage the 
private sector in a meaningful way in our development efforts. Public-
private partnerships are a key tool we can use to achieve sustainable, 
long-term economic development. As you may know, Sens. Coons, Perdue, 
and I reintroduced the Economic Growth and Development Act that 
authorizes USAID to create a mechanism that would allow for the private 
sector to more easily engage and partner with USAID's development 
programs. Will you commit to me that you will work with us on this bill 
if you are confirmed?

    Answer. Yes.

    Question 2. Last year, Congress passed into law the Global Food 
Security Act. I am thankful for all the work this committee did to get 
that bill across the finish line. It is up for reauthorization next 
year. Will you commit to me that you will work with me on continuing to 
improve the Global Food Security Strategy, the whole-of-government 
approach, and our agricultural development programs?

    Answer. Yes.

    Question . I am the chair of the subcommittee with direct oversight 
of the management of the State Department and USAID. If confirmed, will 
you commit to working with me to thoughtfully consider any reforms or 
reorganization of State and USAID and ensure that the proper 
authorities are in place to carry out any reforms or reorganization?

    Answer. Yes.

    Question 3. On April 13, 2017, I joined a bipartisan group of 
Senators in sending a letter to USAID's acting leadership supporting 
the Volunteer for Economic Growth Alliance's skilled volunteer 
initiative. Additionally, a bipartisan group of eight Members of the 
House of Representatives also sent a letter expressing their support 
for this initiative. VEGA leverages pro-bono American private-sector 
expertise in cost-effective, flexible, efficient and strategic U.S. 
investments in emerging markets. However, after a short-term extension 
was granted to give the next Administrator time to review this 
initiative, it will soon expire. Given the bipartisan support for 
skilled volunteerism, do you intend to coordinate closely with Congress 
to ensure that our development efforts continue to draw on skilled 
volunteers and seek new, innovative ways to expand their involvement?

    Answer. Yes, I support drawing on volunteers, where practical and 
cost-effective, to better leverage our resources.



                               __________


           Responses to Additional Questions for the Record 
             Submitted to Mark Green by Senator Todd Young

    Question 1. Ambassador Green, Secretary Tillerson has stated that 
he is seeking efficiencies through potential reorganization plans. How 
do you assess the relative performance of PEPFAR versus PMI, and do you 
see any opportunities for efficiencies at the intersection of these two 
programs that would sustain or improve the current level of 
performance?

    Answer. There is plenty of evidence to prove that the President's 
Emergency Plan for AIDS Relief (PEPFAR) and the President's Malaria 
Initiative (PMI) have both been successful global health initiatives, 
with an impact measurable both in terms of lives saved and, in some 
places, lower rates of transmission. There are several key factors to 
the success of PEPFAR and PMI, which include clearly articulated, 
quantitative goals and strategies focused on scaling up proven 
interventions; statutory Coordinators with clear authorities; high 
standards for transparency; the rigorous monitoring and evaluation of 
programs; and implementation structures that aim to maximize results 
through integration with other global health programs when 
programmatically relevant. If confirmed, I look forward to deepening 
the successes of these programs, to developing a close working 
relationship with the PEPFAR and PMI Coordinators, and to applying 
these lessons learned across the development landscape to further 
increase efficiency and effectiveness.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to Mark Green by Senator John Barrasso

    Question 1. I support making the Department of State and USAID 
leaner, more efficient, and more effective. The State Department and 
USAID need to advance our national security objectives while ensuring 
the best use of American taxpayer dollars.

   What opportunities exist for streamlining, efficiencies and savings 
        at USAID?

    Answer. As stated in my written testimony, making sure that USAID 
programs respect American taxpayers will be an overarching priority, if 
I should be confirmed. It is our responsibility to use precious foreign 
assistance funds as efficiently and effectively as possible. If 
confirmed as Administrator, I will scrutinize every program and 
expenditure to ensure the Agency is maximizing value, minimizing waste, 
and always advancing America's interest. This will mean focusing the 
agency's limited resources on what is working, and ending programs that 
are not. I am committed to consulting with the Congress as we move 
forward in this effort.

    Question 2. Are you committed to eliminating duplication and 
redundancies?

    Answer. Yes.

    Question 3. How would you recommend more deeply integrating USAID's 
policy and budget process into those of the Department of State?

    Answer. I am committed to improving efficiency and appropriate 
reforms to advance development. I am more interested in ensuring that 
we have the right functions and capabilities to meet the complex 
challenges before us rather than on agency structure, and I have an 
open mind on the best way to accomplish this. If confirmed, I look 
forward to working with my interagency colleagues at the Departments of 
State, Defense, Health and Human Services, Agriculture and elsewhere, 
to ensure we are all working together to further U.S. national 
interests and strategic foreign-policy priorities.

    Question 4. The Obama administration focused on food security, 
global health and climate change as its top development priorities.

   What would be your top three development priorities?

    Answer. Should I be confirmed, my overarching development priority 
would be helping target countries take on their own development needs 
by incentivizing and supporting both the policy reforms and capacity-
building necessary to do so. Each nation has particular strengths and 
needs, and I believe we should try to address them in a strategic and 
tailored way. Having said that, I would also emphasize development 
sectors that can also create economic opportunities for America. Feed 
the Future and Power Africa, for example, can help American businesses 
with new markets and new partnerships.

    Question 5. With the national debt rapidly approaching $20 
trillion, the federal government must be good stewards of taxpayer 
funds. Given the increasing need for humanitarian assistance, food 
insecurity, democracy promotion and global health crisis, I do not 
support U.S. taxpayer dollars going to the Global Climate Change 
Initiative and other international climate change programs. President 
Obama's administration requested about $1.3 billion in FY 2017 for 
these types of program. President Trump's administration requested $0 
for the UN Green Climate Fund and the Global Climate Change Initiative.

   If confirmed, will you ensure that funding is being properly 
        prioritized and eliminate funding for international climate 
        change programs?

    Answer. I certainly agree that we are facing serious budget 
challenges, and that we need to be good stewards of taxpayer resources. 
I also agree that humanitarian-assistance challenges and existing 
commitments, such as global health, are important priorities for USAID.
    As the question notes, the administration's budget does not provide 
funding for the Green Climate Fund or Global Climate Change Initiative. 
Instead, I would favor modest initiatives to prevent and deal with 
weather-related disasters, such as the assistance we have provided to 
the Philippines to assist in developing that country's typhoon early-
warning system. This is the kind of intervention that has clear 
humanitarian and development applications.

    Question 6. What are your views of Power Africa?

    Answer. I share your support of Power Africa, which is a valuable 
and successful program, with great potential to transform the 
continent, while also creating new and expanded opportunities for U.S. 
companies.
    Power Africa's efforts and American leadership have resulted in 
significant international momentum towards tackling Africa's energy 
crisis. Power Africa is now among the largest public-private 
partnerships for development in history, having mobilized more than $54 
billion in commitments towards achieving its goals.
    If confirmed, I am interested in understanding how we can use Power 
Africa's model and other initiatives to incentivize good policies, 
capacity-building, and investments in our partner countries by 
leveraging the financing and expertise of the private sector.

    Question 7. As administrator of USAID, would you ensure that USAID 
is promoting all forms of energy projects across the globe, including 
oil, gas, and coal?

    Answer. Yes. Of the more than 7,000 megawatts of new power projects 
that Power Africa has helped reach financial close to date, more than 
three-fourths involve natural gas. I understand the Power Africa team 
has been engaging with Congressional staff, including your own, as well 
as with industry, on these very important issues. These discussions are 
exploring the ways we might deploy U.S. technologies and expertise to 
help African Governments and companies both to take advantage of their 
own domestic resources, as well as to examine the potential for gas 
imports from the United States and world markets. If confirmed, I would 
like to explore what more Power Africa could do to support the 
production of electricity from diverse sources of energy.


    Question 8. There has been a great deal of concern regarding 
reports of upcoming famines in Nigeria, Somalia, South Sudan and Yemen. 
The Office of Foreign Disaster Assistance at USAID and the Office of 
Food for Peace at USAID provide humanitarian assistance during 
international crises and disasters.

   Please discuss the main obstacles and best approaches to resolving 
        the humanitarian crisis facing Nigeria, Somalia, South Sudan, 
        and Yemen.

    Answer. I am deeply concerned about the food-security situation in 
these countries, in which a combined total of 41.5 million people are 
in need of humanitarian assistance. I understand that U.S. assistance 
to the people of these countries includes emergency food and nutrition, 
support for livelihoods, critical health care, shelter, safe drinking 
water, sanitation and hygiene services, and protection for civilians.
    Access to populations in need is a considerable challenge, 
particularly in conflict situations. The numbers of people whom donors 
can reach in several of the ongoing conflicts is limited, and requires 
persistence, creativity, and talented and dedicated staff. For example, 
in South Sudan,ongoing conflict, deliberate bureaucratic impediments, 
and high levels of insecurity continue to stymie the ability to provide 
direct assistance to those most in need. In Yemen, as much as 90 
percent of humanitarian assistance flows through a single port, which 
requires constant negotiation to obtain the necessary clearances to 
ship, offload, and distribute assistance to people on the verge of 
starvation. There are signs that famine likely occurred in Northeastern 
Nigeria in 2016, and might even be ongoing, but continued violence and 
insecurity limits access to many areas, which has triggered large-scale 
displacement, and leads to greater emergency needs. In Somalia, 
humanitarian access has improved in some areas compared with the 
previous 2011-2012 drought and famine, but the situation remains 
tenuous, as much of this improved access is in cities and towns, and 
al-Shabaab's presence continues to limit the ability to access many 
hard-hit rural areas. Despite constraints, humanitarian assistance 
continues to reach many of those in need in Nigeria, Somalia, South 
Sudan and Yemen.
    While humanitarian assistance can save lives and alleviate 
suffering, it cannot resolve man-made crises, which require political 
solutions. In settings like Northeastern Nigeria, the end of violence 
and restoration of public infrastructure and security are the only 
lasting ways to end a humanitarian crisis born from insecurity. 
Similarly, the U.S. Government's continued support of Somali efforts to 
strengthen the federal government's structures and improve security are 
critical to ensuring sustained and reliable access to populations in 
need. If confirmed, I will commit to working with my colleagues across 
the whole of the U.S. Government, and with multilateral institutions 
and others in the international community, to develop enduring, 
political solutions in these countries.



                               __________





                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 11, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
presiding.
    Present: Senators Young [presiding], Gardner, Isakson, 
Shaheen, Coons, Murphy, Kaine, Markey, and Merkley.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    Today we meet to consider the nominations of the following 
individuals: the Honorable David Steele Bohigian to be 
Executive Vice President of the Overseas Private Investment 
Corporation; Mr. Ray Washburne to be President of OPIC; Ms. 
Kelley Eckels Currie, to be U.S. Representative to the Economic 
and Social Council of the United Nations and Alternative 
Representative to the Sessions of the U.N. General Assembly; 
and Mr. Jay Patrick Murray to be Alternate Representative for 
Special Political Affairs at the United Nations and Alternate 
Representative to the Sessions of the U.N. General Assembly.
    I welcome each of our nominees, as well as your families.
    I would also like to welcome our distinguished guests to 
introduce one of the nominees, the senior Senator from Texas, 
Senator Cornyn.
    Before I do that, I would also like to acknowledge your 
fellow Texan, my former colleague, a great American, Pete 
Sessions, a Congressman who kind of showed me the ropes as I 
was getting started in Congress.
    So thank you, Senator Cornyn, for being here today, and I 
would like to recognize you for your remarks, sir.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Chairman Young and members of the 
committee, thank you for letting me be here today to introduce 
my friend and fellow Texan, Ray Washburne.
    Today's hearing and the issues at the core of the Overseas 
Private Investment Corporation come at an opportune time. On 
the heels of the President's trip overseas and as our country 
reasserts its economic role on the global stage, it is 
important for us to be realistic about how we support our 
allies. U.S. direct aid is only a small portion of the capital 
flow that drives the world's economy. Our best tools are 
frequently found in the private sector, and that is where Ray 
comes in and his experience.
    When you look at his background and dedication, you will 
see that he is a strong fit for this role. His drive for 
success started at an early age. His first business venture, I 
am told, was mowing lawns at age 9 with 20 employees. That is 
pretty impressive.
    And his vision for what can be accomplished with hard work 
and perseverance started even before that. I am told he keeps a 
ruler hanging on his office wall from when the Park City Bank 
and Trust Bank building in Dallas opened when he was 8 years 
old. He now owns that building and views the ruler as a symbol 
of one's ability to set goals and find creative potential.
    But many across Texas know him for the role he has played 
in the Dallas economy specifically. After paying his own way 
through Southern Methodist University, he went on to become one 
of Texas' most successful real estate investors and 
entrepreneurs. As the co-founder of MCrowd Restaurant Group, 
his footprint now spans 40 restaurants, including the perennial 
Texas favorite, Mi Cocina. He understands the importance of 
investing not simply for the sake of ownership and profit but 
for reinvigorating the local economy. One look at Highland Park 
Village in Dallas, a refurbished shopping center near his alma 
mater, will show you what I mean by that.
    Ray also serves as an adjunct professor at the SMU Cox 
School of Business where his wisdom and expertise are shared 
with future generations. And he also lends a hand as a 
volunteer and board member for organizations around Texas, 
including the Urban Land Institute, Baylor Health Care System 
Foundation, the Real Estate Council, and the World Presidents 
Association.
    Alongside his family Ray volunteers for the S.M. Wright 
Foundation, which serves the most impoverished in Dallas, and 
Family Legacy in Africa, which encourages education for the 
region's orphans.
    And somehow he manages to balance all of this with his 
three children at home, who are here today, and with this life 
partner Heather, who is a formidable business woman in her own 
right.
    I know Ray shares my belief that OPIC is an important tool 
in the United States' toolkit. It allows us to encourage 
natural economic growth and stability in areas of the world 
that need it the most. And while there are certainly changes 
that can be made, especially when we consider the long-term 
future of OPIC and the sometimes unbalanced investments made by 
the United States, Ray, I believe, will be an experienced and 
dedicated person at the table advocating on behalf of the 
United States of America.
    Once he is confirmed, we can be sure that he will marry the 
United States' interests and the developing world's potential 
into an economically sufficient and innovative future.
    So thank you, Chairman Young and members of the committee, 
for giving me the privilege of introducing my friend, Ray 
Washburne, and I hope the committee will support his 
nomination.
    Senator Young. Thank you, Senator Cornyn. And since the 
good Senator introduced Mr. Washburne, I will take liberties 
here and provide a little additional background on the other 
three nominees.
    Mr. Bohigian is the Managing Director of Pluribus Ventures, 
an advisor to financial services firms in growth companies. 
Earlier he served on the core management team of Bridgewater 
Associates, the world's largest hedge fund. Prior to 
Bridgewater, Mr. Bohigian served as an Assistant Secretary of 
Commerce. Welcome.
    Ms. Currie is currently a senior fellow with the Project 
2049 Institute where she specializes in political reform, 
development, and humanitarian assistance, human rights and 
other nontraditional security issues in the Asia-Pacific 
region. She previously held senior policy positions with the 
Department of State and several international and 
nongovernmental human rights and humanitarian organizations. 
Good to have you here.
    And Colonel Murray is a retired U.S. Army colonel with 
distinction in Iraq, the Balkans, the U.S. Embassy Moscow as an 
advisor in the Bureau of Political Military Affairs at the 
Department of State and as the U.S. military representative at 
the United Nations. Good to have you here, Colonel.
    Before I go further, I would like to invite Senator Cornyn 
to depart at your leisure. I know how busy we get around here.
    And thank you Chairman Sessions again for your attendance.
    Before I turn to Senator Merkley for his statement, in 
light of the positions today's nominees seek to fill, I would 
like to make a few brief comments about the U.N. and OPIC.
    As you point out in your prepared remarks, Mr. Murray, the 
United Nations is an entity with much promise. It is also an 
entity that too often falls short of that promise. I admire 
Ambassador Haley's efforts to do what she can to seek reform 
and accountability at the U.N. There is no doubt that having 
additional high-level appointees at the U.N. will allow for 
increased U.S. engagement with the United Nations on a reform 
agenda.
    The Ambassador for the Special Political Affairs position 
will play an important role in peacekeeping reform in 
particular. This is an area in dire need of reform for missions 
that fail to fulfill their mandates to missions that outlive 
their purpose or, worse yet, missions rife with sexual 
exploitation that victimize those that are supposed to be 
protected. There is no doubt U.N. peacekeeping reform is long 
overdue. As you suggest in your prepared remarks, Mr. Murray, 
both whistleblower protections and training must be 
strengthened.
    The Ambassador to the Economic and Social Council of the 
U.N. will also play an important role, including potentially in 
efforts to reform the U.N. Human Rights Council. I would note 
that our sub committee held a hearing on the U.N. Human Rights 
Council on May 25th. As that hearing highlighted, some of the 
countries with the worst possible human rights records sit on 
the Human Rights Council using their membership to deflect 
attention from their egregious human rights abuses, instead 
attempting to pass judgment on Israel. Addressing this 
unacceptable status quo should be a top priority.
    Those are a few of the reasons I am hopeful that this 
committee and the larger Senate will process these two U.N. 
nominations expeditiously so that they can be in a position and 
get to work before the U.N. General Assembly in September.
    As I said, we also have two individuals who have been 
nominated to lead OPIC. I look forward to discussing OPIC's 
mission and the increasing importance of the private sector in 
international development.
    With that, I would like to recognize the distinguished 
ranking member for his comments. Senator Merkley?

                STATEMENT OF HON. JEFF MERKLEY,
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you, Mr. Chairman. And I am 
delighted we are holding this hearing as we exercise our advise 
and consent responsibility. And thank you to each of you for 
putting yourselves forward to take and consider serving in 
these important public roles.
    In the aftermath of the most destructive conflict in 
history, the United States worked in concert with its allies 
and partners to found the United Nations, a body chartered to, 
quote, save succeeding generations from the scourge of war and 
to reaffirm faith in fundamental human rights and to promote 
social progress and better standards of life and larger 
freedom. Those are powerful aspirational missions.
    And the United Nations has pursued these lofty standards 
better when guided by American leadership. Confirming nominees 
to critical roles will help the United Nations fulfill the 
aspirations that were so well laid out in the beginning.
    I have been concerned about the pace of the process for 
nominating candidates to key positions and am pleased that we 
are moving forward today with this hearing at the United 
Nations for the United Nations Economic and Social Council and 
the United Nations Security Council. I look forward to hearing 
from all of you in terms of what you see as key changes or 
objectives that you might bring to your roles.
    I am delighted that we now have nominees for the Overseas 
Private Investment Corporation, or OPIC. OPIC is a self-
sustaining U.S. agency that does important work facilitating 
American investment in emerging markets. I have been long 
impressed with their work, which is why I was so troubled to 
see the administration's budget call for OPIC's elimination. 
Zeroing OPIC is especially problematic as OPIC operates at no 
net cost to taxpayers and in fact reduces our deficits. Its 
revenues back to the U.S. Treasury have helped reduce the 
deficit for 39 consecutive years, including more than $3.7 
billion in deficit reduction over just the past 10 years. So I 
am excited that these nominations may well signal a reversal in 
the administration's plans to eliminate the agency, and I 
certainly look forward to hearing the nominees' views on the 
administration's plans.
    Thank you again for your willingness to serve. I look 
forward to your comments.
    Senator Young. Well, thank you, Senator Merkley.
    We will now turn to our nominees. I appreciate your 
willingness to serve in these important capacities. I would 
remind you your full statements will be included in the record, 
without objection.
    For your opening statements, let us go in the order that I 
used earlier. I encourage each of you to start by recognizing 
any family or friends who may be attending today. Mr. Bohigian?

  STATEMENT OF HON. DAVID STEELE BOHIGIAN, OF MISSOURI, TO BE 
  EXECUTIVE VICE PRESIDENT OF THE OVERSEAS PRIVATE INVESTMENT 
                          CORPORATION

    Mr. Bohigian. Mr. Chairman, Ranking Member, and members of 
the committee, thank you for offering me the opportunity to 
appear here today. I am honored to be nominated to be the 
Executive Vice President of OPIC.
    I would like to thank the members of the committee and 
their staff for time they spent with me prior to the hearing.
    Thank you too for the invitation to have my family join me 
here today. My son Steele and younger daughter Caroline are 
away at camp. I am joined here by my fantastic wife Catherine, 
who I love more than words can express, and I would note, in 
particular, my daughter Kate served as Delegate for the United 
States in model United Nations where she achieved outstanding 
delegate earlier this year. Thank you for being here.
    I also want to thank my parents for supporting me. Every 
day I am trying to live up to their example of serving their 
community and their family.
    I would also like to recognize my fellow nominees and in 
particular Mr. Washburne who has been nominated to be the CEO 
and President of OPIC. As noted earlier, Mr. Washburne is a 
successful businessman who has a long history of analyzing 
companies and investments for their potential. He combines a 
keen business sense with a deep consideration of the impact 
that businesses will have on the broader community. His superb 
character has been shaped by a family not only here today but 
that has served this Nation as Senators, governors, 
Congressmen, and also includes a Secretary of State and an 
ambassador. I expect these qualities will serve him well as 
President and CEO of OPIC.
    If confirmed, I hope my government experience and business 
track record will complement his values and abilities and 
skills as OPIC seeks to help American businesses succeed in 
international markets.
    Earlier in my career, I had the distinct privilege to serve 
as Assistant Secretary of Commerce for market access and 
compliance in the International Trade Administration. My job 
was to ensure that American companies could compete fairly in 
international markets. I worked with American businesses and 
foreign governments to develop an international business 
climate that created opportunities for American workers and 
spread American values. In that role, I am proud to have 
launched the Entrepreneurship Initiative where small businesses 
could advocate to reduce barriers to trade and open new markets 
for American goods and services. I am also proud to have led 
the U.S. Government's first clean energy trade mission where 
U.S. businesses developed lasting and profitable relationships 
in China and India. Prior to that role, I was the Director of 
the Department of Commerce's Office of Policy and Strategic 
Planning where I advised two Secretaries on economics and 
energy.
    In business, I have helped companies grow and prosper, 
working across every corporate function from operations to 
strategy in a variety of roles including founder, CEO, and 
managing director. I have founded businesses such as an energy 
efficiency project finance firm and a startup incubator, as 
well as assisting countless companies enter new markets. I have 
helped manage some of the world's most innovative financial 
services firms in a career that has spanned venture capital, 
private equity, investment banking, and hedge funds. Across 
these disciplines, I have learned to turn concepts into 
companies, analyze business prospects, structure projects, 
develop global supply chains, and evaluate microeconomic and 
macroeconomic developments. I believe these experiences have 
helped prepare me to guide the important work ahead.
    American businesses operating in international markets 
deliver opportunities to workers in the U.S. and develop 
tangible benefits to partner companies, laying the foundation 
for global peace and prosperity. When the American private 
sector builds power plants, water treatment facilities, or 
airports, the benefits are not simply economic. These 
partnerships lift environmental, social, and governance 
standards around the world. International connections developed 
through business lead to deeper cross-cultural understanding 
and create the conditions for global opportunity and 
compassion. Throughout Europe, Asia, the Middle East, Africa, 
and the western hemisphere, American private sector investment 
has promoted American jobs, American values, and lifted living 
standards to heights unimaginable in earlier generations.
    Almost 250 years ago, the Declaration of Independence 
boldly asserted that life, liberty, and the pursuit of 
happiness were inalienable rights. I believe these rights are 
immutable and eternal and underpin values that have spread 
prosperity and freedom at home and abroad. If I am confirmed, I 
would be honored to continue that tradition and help advocate 
for American opportunities in the years ahead.
    Mr. Chairman and the committee, thank you for that 
opportunity.
    [Mr. Bohigian's prepared statement follows:]


                  Prepared Statement of David Bohigian

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
thank you for offering me the opportunity to appear here today. I am 
honored to be nominated by President Trump to serve as the Executive 
Vice President of the Overseas Private Investment Corporation.
    I would like to thank the members of the committee and their staff 
for the time they have spent with me prior to the hearing. Thank you 
too for the invitation to have my family join me here today. While my 
son Steele and younger daughter Caroline are away at summer camp, I am 
joined here by my wife Catherine and daughter Kate. Thank you for being 
here. I also want to thank my parents for supporting me--every day, I'm 
trying to live up to their example of serving their community and 
family.
    I would also like to recognize my fellow nominees here on the 
panel. If confirmed, I particularly look forward to working with Ray 
Washburne, who has been nominated by the President to serve as OPIC's 
President and Chief Executive Officer.
    Mr. Chairman, Mr. Washburne is a successful businessman who has a 
long history of analyzing companies and investments for their 
potential. Mr. Washburne combines a keen business with a deep 
consideration of the impact that business will have on the broader 
community. His superb character has been shaped by a family that has 
served this Nation as Senators, Governors and congressmen, and also 
includes a Secretary of State and Ambassador. I expect these qualities 
will serve him well as President and Chief Executive Officer of OPIC.
    If confirmed, I hope my government experience and business track 
record will complement his values, abilities and skills as OPIC seeks 
to help American businesses succeed in international markets.
    Earlier in my career, I had the distinct privilege to serve as 
Assistant Secretary for market access and compliance in the 
International Trade Administration of the Department of Commerce. My 
job was to ensure that American companies could compete fairly in 
international markets. I worked with American businesses and foreign 
governments to develop an international business climate that created 
opportunities for American workers and spread American values. In that 
role, I am proud to have launched the Entrepreneurship Initiative, 
where small businesses could advocate to reduce tariff and non-tariff 
barriers to trade to open new markets for American goods and services. 
I also am proud to have led the federal government's first clean energy 
trade missions, where U.S. businesses developed lasting and profitable 
relationships in China and India. Prior to the International Trade 
Administration, I was the Director of the Department's Office of Policy 
and Strategic Planning, where I advised two Secretaries on economics 
and energy.
    In business, I have helped companies grow and prosper, working 
across every corporate function from operations to strategy in a 
variety of roles including founder, Chief Executive Officer and 
Managing Director. I have founded businesses such as an energy 
efficiency project finance firm and a startup incubator as well as 
assisting countless companies enter new markets. I have helped manage 
some of the world's most innovative financial services firms in a 
career that has spanned venture capital, private equity, hedge funds, 
and investment banking. Across these disciplines, I have learned to 
turn concepts into companies, analyze business prospects, structure 
projects, develop global supply chains, and evaluate microeconomic and 
macroeconomic developments. I believe these experiences have prepared 
me well to help guide the important work ahead.
    American businesses operating in international markets deliver 
opportunities to workers in the United States and develop tangible 
benefits to partner countries, laying the foundation for global peace 
and prosperity. When the American private sector builds power plants, 
water treatment facilities, or airports, the benefits aren't simply 
economic--the partnerships lift environmental, social and governance 
standards around the world. International connections developed through 
business lead to deeper cross-cultural understanding and create the 
conditions for global opporunity and compassion. Throughout Eastern 
Europe, Asia, the Middle-East, Africa and the Western Hemisphere, 
American private sector investment has promoted American jobs here, 
American values overseas, and lifted living standards to heights 
unimaginable to earlier generations.
    Almost 250 years ago, the Declaration of Independence boldly 
asserted that life, liberty and the pursuit of happiness were 
unalienable rights. I believe that these rights are immutable and 
eternal and underpin values that have spread prosperity and freedom at 
home and abroad. If I am confirmed, I would be honored to continue that 
tradition and help advocate for American opportunities in the years 
ahead.
    Mr. Chairman, I welcome the chance to serve our country as the 
Executive Vice President of OPIC. If confirmed, I look forward to 
working with you, the other members of the committee, the committee 
staff, and OPIC's talented and committed professionals to advance our 
common goals.


    Senator Young. Thank you.
    Mr. Washburne?

 STATEMENT OF RAY WASHBURNE, OF TEXAS, TO BE PRESIDENT OF THE 
            OVERSEAS PRIVATE INVESTMENT CORPORATION

    Mr. Washburne. Thank you, Chairman Young, Ranking Member 
Merkley, and members of the committee. Thank you for the 
opportunity to appear here today. Thank you also to the members 
and staff for graciously giving their time to meet with me 
prior to today's hearing. I also would like to thank my Senator 
Cornyn for his kind words in support of my nomination and to my 
local Congressman, Pete Sessions, for his support.
    It is a great privilege to address the committee as 
President Trump's nominee for President and Chief Executive 
Officer of the Overseas Private Investment Corporation.
    I am joined this morning by my wife Heather sitting 
directly behind me. I would also like to introduce my three 
children, Hill, Andrew, and Margo. They are students of 
history, and today is an opportunity for them to see how our 
great democracy works.
    My family has been involved politically and in public 
service with our republic since the 1850s. My forbearers served 
as mayors, Congressmen, Senators, governors, ambassadors, and 
Secretary of State that by example have given me a great desire 
to serve the American people. I have personally served on city 
and State boards and commissions. I have been fortunate to have 
traveled the world extensively and recently have spent a great 
deal of time in Africa. In particular, my wife, children, and I 
support an orphanage in Zambia and we have worked there the 
last two summers and have recently funded the construction of a 
new K through 12 school for 300 children in the middle of the 
most distressed areas of the Zambian capital, Lusaka. We 
continue to support many of the orphans there, and the 
experience has given me a deep insight into developmental 
issues in Africa.
    I have been an entrepreneur for 37 years. I have paid my 
way through college at SMU by selling carpet door to door to 
students, as well as working in construction. I know the value 
of a dollar both in the hard work it takes to earn it and to 
not unjustly take risks to lose it. Since graduating from 
college, I have been involved in financial services, 
hospitality, manufacturing, and real estate development. In 
financial services, my experience has included being on the 
board and loan committee of several banks involving hundreds of 
millions of dollars of loans and credit facilities. In private 
equity, I have invested and served on boards of infrastructure, 
construction, and businesses involved in various equipment and 
transportation manufacturing. Businesses I have grown have 
allowed workers to provide for their families, develop their 
skills, and are cornerstones of the economic fabric of their 
communities. I believe entrepreneurship promotes values that 
are integral to the American dream.
    In real estate, I have acquired and developed everything 
from office buildings, warehouses, shopping centers, and land 
developments. In hospitality, 26 years ago I was a co-founder 
of a small 10-table restaurant that has grown to over 2,000 
employees. Last year we served over 6 million customers.
    All these experiences have prepared me well to lead OPIC.
    As a businessman, I have dealt with the challenges of 
running a company, meeting a payroll, and ensuring prudent 
financial management and risk mitigation. If confirmed, I will 
use my experience to make OPIC more efficient while being a 
good steward of the American taxpayers' dollar.
    I have seen firsthand how American innovation and American 
capital can impact developing companies. America's 
entrepreneurial spirit can improve the well-being of people 
living in some of the world's most vulnerable countries. When 
an American business is willing to risk capital, it sends a 
signal to the rest of the world. It signals to the business 
community that markets are viable. It signals that American 
businesses have faith in a country's rule of law and that a 
country is capable of upholding labor and environmental 
standards.
    I am confident, if confirmed, I can guide OPIC to the path 
forward as determined by the Congress and the President.
    Mr. Chairman, if confirmed, I look forward to working with 
you, the members of the committee, the committee staff, and my 
colleagues in the administration to ensure OPIC continues to 
prudently manage its portfolio while upholding American 
principles abroad. I will provide steady but adaptable 
leadership.
    In the meantime, I welcome the chance to serve our country 
as President and CEO of OPIC and look forward to any questions 
you have today. Thank you.
    [Mr. Washburne's prepared statement follows:]


                  Prepared Statement of Ray Washburne

    Chairman Young, Ranking Member Merkley, and members of the 
committee, thank you for the opportunity to appear here today. Thank 
you also to the Members and staff for graciously giving their time to 
meet with me prior to today's hearing. I want to thank Senator Cornyn 
for his kind words in support for my nomination.
    It is a great privilege to address this committee as President 
Trump's nominee for President and Chief Executive Officer of the 
Overseas Private Investment Corporation. I am joined this morning by my 
wife, Heather. I would also like to introduce to you my three children, 
Hill, Andrew, and Margo. They are students of history, and today is an 
opportunity for them to see how our great democracy works.
    My family has been involved politically and in public service with 
our Republic since the 1850's. My forbearers have served as Mayors, 
Congressmen, Senators, Governors, Ambassadors, and a Secretary of 
State. I have personally served on city and state boards and 
commissions. I been fortunate to have traveled the world extensively 
and recently spent a great deal of time in Africa. In particular, my 
wife, children, and I support an orphanage in Zambia and we have 
recently funded the construction of a new K-12 school for 300 children 
in the middle of the most distressed areas of the Zambian capital, 
Lusaka. We continue to support many of the orphans there, and the 
experience has given me deep insight into developmental issues in 
Africa.
    I have been an entrepreneur for 37 years. I paid my way through 
college at Southern Methodist University (SMU) by selling carpet door-
to-door and working in construction. I know the value of a dollar both 
in the work that it takes to earn it and not to unjustly take risks to 
lose it. Since graduating from college, I have been involved in 
financial services, hospitality, manufacturing, and real estate 
development. In financial services, my experience has included being on 
the board and loan committees of several banks involving hundreds of 
millions of dollars of loans and credit facilities. In private equity, 
I have invested and served on company boards of infrastructure, 
construction, and businesses involving various equipment and 
transportation manufacturing. Businesses I have grown have allowed 
workers to provide for their families, develop their skills and are 
cornerstones of the economic fabric of their communities. I believe 
entrepreneurship promotes values that are integral to the American 
Dream.
    In real estate, I have acquired and developed everything from 
office buildings, warehouses, shopping centers, and land developments. 
In hospitality, I was the co-founder of a small 10-table restaurant 
that has grown to 2,000 employees and served over 6 million customers 
last year.
    All of these experiences have prepared me to lead OPIC.
    As a businessman, I've dealt with the challenges of running a 
company, meeting a payroll, and ensuring prudent financial management 
and risk mitigation. If confirmed, I will use my experience to make 
OPIC more efficient while being a good steward of the American 
taxpayer's dollar.
    I've seen firsthand how American innovation and American capital 
can impact developing countries. America's entrepreneurial spirit can 
improve the well-being of people living in some of the world's most 
vulnerable countries. When an American business is willing to risk 
capital, it sends a signal to the rest of the world. It signals to the 
business community that markets are viable. It signals that American 
businesses have faith in a country's rule of law and that a country is 
capable of upholding labor and environmental standards.
    I am confident, if confirmed, that I can guide OPIC through the 
path forward as determined by the Congress and the President.
    Mr. Chairman, if confirmed, I look forward to working with you, the 
other members of the committee, the committee staff, and my colleagues 
in the administration to ensure OPIC continues to prudently manage its 
portfolio, while upholding American principles abroad. I will provide 
steady, but adaptable, leadership.
    In the meantime, I welcome the chance to serve our country as 
President and CEO of OPIC and look forward to any questions.


    Senator Young. Thank you, Mr. Washburne. It is broadly 
understood that public administration can be quite challenging, 
but I cannot imagine it would be any more challenging than 
selling carpet to college students door to door. [Laughter.]
    Mr. Washburne. Primarily in the girls' dorms. [Laughter.]
    Senator Young. We will move on. Ms. Currie?

     STATEMENT OF KELLEY ECKELS CURRIE, OF GEORGIA, TO BE 
REPRESENTATIVE OF THE UNITED STATES OF AMERICA ON THE ECONOMIC 
  AND SOCIAL COUNCIL OF THE UNITED NATIONS, WITH THE RANK OF 
AMBASSADOR, AND TO BE AN ALTERNATE REPRESENTATIVE OF THE UNITED 
 STATES OF AMERICA TO THE SESSIONS OF THE GENERAL ASSEMBLY OF 
                       THE UNITED NATIONS

    Ms. Currie. I am not sure I can follow that.
    Chairman Young, Ranking Member Merkley, distinguished 
members of the committee, thank you so much for the opportunity 
to appear before you today as President Trump's nominee to be 
the United States Representative to the Economic and Social 
Council of the United Nations. I am honored to have this 
opportunity to serve my country and appreciate the confidence 
President Trump, Secretary Tillerson, and Ambassador Haley have 
shown in me.
    I also want to thank my wonderful family, who is here 
today, particularly my husband Peter and my children, Mack and 
Sarah, for all of their support and encouragement; my mother 
Beth and my step-father, Gene Price, who have come today from 
Thomasville, Georgia; and my mother-in-law, Dottie Currie, who 
is very much looking forward to seeing more of her 
grandchildren in New York, if I am confirmed.
    I also have to thank everyone at USUN and the other offices 
at the State Department and the White House and, of course, the 
great committee staff here at the Foreign Relations Committee 
who have helped to guide me through this process.
    I also am glad to be here today with my fellow nominee 
Patrick and hope that we can move through this process together 
the rest of the way.
    Finally, I have to give a shout out to my colleagues from 
Project 2049 who are here today in the audience.
    When I was growing up in small-town south Georgia, 
enthusiastically participating in model U.N. programs in high 
school, I never dreamed that I would be asked to represent our 
great Nation at the U.N. Whether serving as the majority staff 
director of the congressional Human Rights Caucus or supporting 
democratic activists in closed societies during my time with 
the International Republican Institute, I have spent my career 
working to promote international human rights, human freedom, 
and human dignity. Today, the universality of human rights is 
under attack from resurgent authoritarian regimes that are 
threatened by the very ideas of freedom of expression, freedom 
of association, and freedom of religion. Regimes that rule 
through fear, coercion, and cooptation rather than the consent 
of the governed will always seek to limit basic freedoms both 
of their own citizens and of others when possible. 
Unfortunately, repressive regimes have too often found a safe 
harbor in the very international bodies that are meant to 
protect the most vulnerable. This must change if these bodies 
are to continue to enjoy the support of the American people. If 
confirmed, I look forward to working with Ambassador Haley and 
our colleagues at the State Department to advance the 
protection of human rights worldwide by refocusing the U.N. on 
the core missions that Senator Merkley spoke so eloquently of 
earlier.
    Among the most critical aspects of America's efforts to 
elevate and defend human rights and human freedom is our 
longstanding focus on empowering women and girls. As a mother 
of a young girl, this issue is of deep personal importance to 
me. It is vital that girls have equal access to education, 
women are given equal opportunity in the workforce, and women 
and girls are protected from sexual violence and exploitation. 
If these efforts are to succeed, men must be partners in these 
initiatives. Many of the lead U.N. agencies that address these 
challenges fall under the ECOSOC umbrella. Unfortunately, 
overlapping mandates, bureaucratic competition, and other 
factors have made these U.N. mechanisms less effective than 
they could and should be. If confirmed, I look forward to 
working with our global partners to support the full economic 
and political participation of women and girls.
    Another major focus of ECOSOC's work is the global effort 
to achieve the sustainable development goals. While recognizing 
the value of the framework established by the SDGs, it is 
important to realize that achieving a more stable, prosperous, 
and secure global community also requires tackling political 
issues implicated in systemic human rights abuses and conflict-
related crises. If confirmed, I look forward to working with 
our partners to see how we can work within this framework while 
also addressing some of its gaps.
    While there are certainly areas for improvement, ECOSOC is 
a critical forum for the United States to advocate America's 
human rights, development, and humanitarian values and 
interests. If confirmed, I will be honored to represent the 
United States at this important body and will work closely with 
our partners, as well as with Congress, to demonstrate American 
leadership in these areas.
    Thank you so much for the opportunity to appear before the 
committee today, and I look forward to taking your questions.
    [Ms. Currie's prepared statement follows:]


                  Prepared Statement of Kelley Currie

    Chairman Young, Ranking Member Merkley, distinguished members of 
the committee, thank you for the opportunity to appear before you as 
President Trump's nominee to be the United States Representative to the 
Economic and Social Council of the United Nations. I am honored have 
this opportunity to serve my country, and appreciate the confidence 
President Trump, Secretary Tillerson, and Ambassador Haley have shown 
in me. I also want to thank my family, particularly my husband Peter 
and my children Mack and Sarah, for their support and encouragement; my 
mother Beth and my step-father Gene Price who have come today from 
Georgia; and my mother-in-law Dottie Currie who is looking forward to 
seeing more of her grandchildren in New York. I also have to express my 
appreciation to everyone at USUN and the other offices at the State 
Department and the White House who helped guide me through the process.
    When I was growing up in small-town South Georgia, enthusiastically 
participating in model United Nations programs in high school, I never 
dreamed I would be asked to represent our great nation at the United 
Nations. Whether serving as the majority staff director of the 
Congressional Human Rights Caucus or supporting democratic activists in 
closed societies during my time with the International Republican 
Institute, I have spent my career working to promote international 
human rights, human freedom and human dignity.. Today, the universality 
of human rights is under attack from resurgent authoritarian regimes 
that are threatened by the ideas of freedom of expression, freedom of 
association and freedom of religion. Regimes that rule through fear, 
coercion and cooptation rather than the consent of the governed will 
always seek to limit basic freedoms--both of their own citizens and of 
others, when possible. Unfortunately, repressive regimes have too often 
found a safe harbor in the very international bodies that are meant to 
protect the most vulnerable. This must change if these bodies are to 
continue to enjoy the support of the American people. If confirmed, I 
look forward to working with Ambassador Haley and our colleagues at the 
Department of State to advance the protection of human rights worldwide 
by refocusing the U.N. on its core mission of promoting genuine 
international peace and security.
    Among the most critical aspects of America's efforts to elevate and 
defend human rights and human freedom is our long-standing focus on 
international efforts to empower women and girls. It is vital that 
girls have equal access to education, women are given equal opportunity 
in the workforce, and women and girls are protected from sexual 
violence and exploitation. If these efforts are to succeed, men must be 
partners in these initiatives. Many of the lead U.N. agencies that 
address these challenges fall under the ECOSOC umbrella. Unfortunately, 
overlapping mandates, bureaucratic competition and other factors have 
made these U.N. mechanisms less effective than they could and should 
be. If confirmed, I look forward to working with our global partners 
and the U.N. management to improve the functioning of those agencies 
that are intended to support the full economic and political 
participation of women and girls.
    Another major focus of ECOSOC's work is the global effort to 
achieve the Sustainable Development Goals. Providing improved access to 
food, water, and health care are laudable and important goals, but 
without broad-based domestically-driven economic growth--not to mention 
peace, security and responsive, accountable governance--any short-term 
gains in these areas are likely to be illusory. While recognizing the 
value of the framework established by the Sustainable Development 
Goals, it is important to realize that achieving a more stable, 
prosperous and secure global community also requires tackling political 
issues implicated in systemic human rights abuses and conflict-related 
crises. If confirmed, I look forward to working with our partners to 
see how we can work within this framework while also addressing some of 
the gaps on political reform.
    While there are certainly areas for improvement, the Economic and 
Social Council of the United Nations is a critical forum for the United 
States to advocate America's human rights, development, and 
humanitarian values and interests. If confirmed, I will be honored to 
represent the U.S. at this important body, and work closely with our 
partners, as well as with Congress, to demonstrate American leadership 
and to further American values and interests.
    Thank you for the opportunity to appear before the committee today. 
I look forward to taking your questions.


    Senator Young. Thank you, Ms. Currie.
    Colonel Murray?

 STATEMENT OF JAY PATRICK MURRAY, OF VIRGINIA, TO BE ALTERNATE 
  REPRESENTATIVE OF THE UNITED STATES OF AMERICA FOR SPECIAL 
   POLITICAL AFFAIRS IN THE UNITED NATIONS, WITH THE RANK OF 
AMBASSADOR AND TO BE AN ALTERNATE REPRESENTATIVE OF THE UNITED 
 STATES OF AMERICA TO THE SESSIONS OF THE GENERAL ASSEMBLY OF 
                       THE UNITED NATIONS

    Mr. Murray. Chairman Young, Ranking Member Merkley, 
distinguished members of the committee, I am honored to appear 
before you today as the President's nominee to serve as the 
Alternate Representative for Special Political Affairs at the 
United Nations. I am grateful to President Trump, Secretary 
Tillerson, and Ambassador Haley for this opportunity.
    I am also grateful to have some friends and family in the 
audience I would just like to introduce: my nephew Clay, his 
wife Heidi, and my sharp-as-a-tack great niece Rebecca sitting 
right here; also some good friends that are here today, Jackie 
Wolcott, Jim Gilmore, Sherry Simmons, David Norcross, and 
Laurie Michael. And, Kelley, I also appreciate the opportunity 
that we have had to go through this together and, if we are 
confirmed, to work side by side at the United Nations.
    It was the honor of my life to serve my country in uniform 
for almost 25 years. And while I have retired from the Army, 
that solemn oath to support and defend the Constitution has no 
expiration date. If confirmed, I pledge I will take those same 
values to the United Nations where I will work tirelessly to 
defend American national interests and protect our sovereignty.
    Upon its creation after World War II, the United Nations 
was seen as a mechanism for peace and stability around the 
world, and since that time, we have seen the United Nations 
provide lifesaving food and medicine globally, help the weak 
and the most vulnerable, and send peacekeepers into some of the 
most dangerous and volatile corners of the world.
    However, the U.N. also retains a culture of mismanagement, 
inefficiency, and too often a lack of accountability. An 
organization that ignores the activities of grave human rights 
abusers while repeatedly and unfairly assailing one of our 
greatest allies Israel. As we look around the world, it is 
clear that the United Nations Security Council leaves a great 
deal to be desired in fulfilling its mandate to maintain 
international peace and security. So there is certainly much 
work to be done, and American leadership and American values at 
the United Nations will be essential as we move forward.
    I am grateful for Ambassador Haley's leadership at the 
United Nations pressing for vital reforms, insisting on the 
fair treatment of Israel, and defending global freedoms. We 
face a myriad of global challenges, including a devastating 
famine across Africa and Yemen, the growing threat of North 
Korea, and the ongoing conflict in Syria. Currently there are 
some 100,000 peacekeepers deployed around the world, including 
in some very volatile places such as Mali, South Sudan, and the 
Central African Republic. The American taxpayer foots 29 
percent of that bill, making our contribution far and away the 
largest of any United Nations member state. And while we 
appreciate the vital role of those peacekeepers, the scourge of 
sexual exploitation and abuse threatens to undermine that role 
and permanently damage the reputation of the U.N.'s blue 
helmets. Indeed, when peacekeepers prey upon the very people 
they are ostensibly there to protect, it is not only vile and 
wrong, but the viability of the peacekeeping operation itself 
is greatly diminished. If confirmed, I will fight to ensure 
that the U.N. finally holds those responsible, both the 
individuals and the troop-contributing countries, publicly to 
account and work to improve training efforts at home and 
whistleblower protections in the field.
    Additionally, based upon my previous experience, I believe 
the Security Council must take a goal-oriented approach to 
peacekeeping. Instead of allowing peacekeeping operations to 
perpetuate for decades, I think we should establish mandates 
with clear objectives and hold both the leadership and the host 
parties responsible for accomplishing those objectives so that 
we can declare victory and go home. We owe that not only to the 
troops in the field and the citizens that they are there to 
protect but also to the American taxpayer.
    I have a strong background of military, political, and 
diplomatic experience. Army Foreign Area Officers have long 
been described as America's soldier statesmen. I proudly served 
as a Foreign Area Officer at numerous embassies around the 
world and at the Department of State in the Bureau of Political 
Military Affairs and later at the U.S. mission to the United 
Nations. I participated in frequent Security Council 
deliberations pertaining to international peace and security, 
peacekeeping operations, and other issues. If confirmed, I will 
be involved with these and other similar issues at the United 
Nations.
    I am grateful for Ambassador Haley's leadership to the 
U.N., and once again, I am honored to be considered for this 
post, for the opportunity to work under her leadership. I 
believe we are at a tipping point where the injection of strong 
American leadership and values can make a powerful, positive 
difference. A secure, stable world is decidedly in America's 
national interest.
    Thank you for the opportunity to appear before this 
committee today, and I look forward to your questions.
    [Mr. Murray's prepared statement follows:]


                Prepared Statement of Jay Patrick Murray

    Chairman Young, Ranking Member Merkley, distinguished members of 
the committee, I am honored to appear before you today as the 
President's nominee to serve as the Alternate Representative for 
Special Political Affairs at the United Nations. I am grateful to 
President Trump, Secretary Tillerson, and Ambassador Haley for this 
opportunity.
    It was the honor of my life to serve my country in uniform for 
almost twenty-five years. While I've retired from the Army, that solemn 
oath to support and defend the Constitution has no expiration date. If 
confirmed, I pledge to take those same values to the United Nations, 
where I will work diligently to defend American national interests and 
protect our sovereignty.
    Upon its creation after World War II, the United Nations was seen 
as a mechanism for peace and stability around the world. Since that 
time, we've seen the United Nations provide lifesaving food and 
medicine globally, help the weak and most vulnerable, and send 
peacekeeping troops into some of the most dangerous corners of the 
world. However, the U.N. also retains a culture of mismanagement, 
inefficiency, and a lack of accountability. An organization that 
ignores the activities of grave human rights abusers while repeatedly 
and unfairly assailing one of our greatest allies, Israel. And as we 
look around the world, it is clear that the United Nations Security 
Council leaves much to be desired in fulfilling its mandate to maintain 
international peace and security. So there is certainly much work to be 
done, and American leadership and values at the United Nations will be 
essential moving forward.
    I am grateful for Ambassador Haley's leadership at the United 
Nations, pressing for vital reforms, insisting on fair treatment of 
Israel, and defending global freedoms. We face myriad global 
challenges, including a devastating famine across Africa and Yemen, the 
growing threat of North Korea, and the ongoing conflict in Syria. 
Currently there are some 100,000 U.N. peacekeepers deployed around the 
world, including in volatile places like Mali, South Sudan, and the 
Central African Republic. The American taxpayer foots 29 percent of 
that bill, making ours far and away the largest contributing nation. 
And while we appreciate the vital role of peacekeepers, the scourge of 
sexual exploitation and abuse threatens to undermine that role and 
permanently damage the reputation of the U.N.'s blue helmets. Indeed, 
when peacekeepers prey upon the very people they are ostensibly there 
to protect, it is not only vile and wrong, but the viability of the 
peacekeeping operation is greatly diminished. If confirmed, I will 
fight to ensure that the U.N. finally holds those responsible, both the 
individuals and the troop contributing countries, publicly to account, 
and work to improve training efforts at home and whistleblower 
protections in the field. This must be stopped.
    Additionally, based on my previous experience I believe the 
Security Council must take a goal-oriented approach to peacekeeping. 
Instead of allowing peacekeeping operations to perpetuate for decades, 
we should establish mandates with clear objectives, and hold both the 
leadership and the host parties responsible for accomplishing those 
objectives so that we candeclare victory and go home. We owe that not 
only to the troops in the field and the citizens they are there to 
protect, but also to the American taxpayer.
    I have a strong background of military, political and diplomatic 
experience. Army Foreign Area Officers have long been described as 
America's ``Soldier-Statesmen.'' I proudly served as a Foreign Area 
Officer at numerous embassies around the world, at the Department of 
State in the Bureau of Political Military Affairs, and later at the 
U.S. Mission to the United Nations as the American Military 
Representative to the United Nations Military Staff Committee. I 
participated in frequent U.N. Security Council deliberations pertaining 
to international peace and security, Peacekeeping Operations, and other 
issues. If confirmed, I will be involved with these, and other similar 
issues at USUN.I am grateful for Ambassador Haley's leadership at the 
United Nations, and once again, I am honored to be considered for this 
post, and for the opportunity to work under her leadership. I believe 
we are at a tipping point, where the injection of strong American 
leadership and values can make a powerful, positive difference, not 
only in an institution with so many shortfalls yet so much promise, but 
also for those most vulnerable around the world. A secure, stable world 
is decidedly in America's national interest.
    Thank you for the opportunity to appear before this committee 
today. I look forward to taking your questions.


    Senator Young. Thank you, Mr. Murray.
    Before I proceed, I would just like to acknowledge the 
presence of Governor Jim Gilmore in the audience. I did not see 
you earlier, sir. Thank you for your service.
    We are going to proceed with questions, 7-minute rounds, 
and I will begin with Ms. Currie.
    Ms. Currie, in your prepared statement, you note that a 
major role of the United Nations Economic and Social Council is 
the global effort to achieve the sustainable development goals. 
Some of these 17 goals include zero hunger and clean water and 
sanitation. When I consider these worthy goals, I cannot help 
but think of the urgent crisis in Yemen. What is your 
assessment of the situation in Yemen, Ms. Currie?
    Ms. Currie. Thank you for asking about the famine and the 
humanitarian crisis in Yemen and for your excellent work with 
Senator Cardin introducing your resolution on the four famines 
and all the attention that you have brought to the issue of the 
four famines. These complex humanitarian disasters, all of 
which are manmade, have been almost invisible despite their 
huge proportions. It is quite amazing that millions of people 
are at risk of starvation, imminent risk of starvation, and the 
world has barely paid attention to it.
    The United States, through the generosity of the Congress, 
has supported a $1 billion contribution to the UNOCHA appeal of 
$5.6 billion, but we have been, I think, disappointed by the 
lack of participation by other partners and hope to see that 
stepped up.
    In Yemen, this is one of the most complex of the four 
because of the presence of different groups that are fighting 
and the involvement of external actors, including the United 
States and the Saudis. So there is a huge conflict element 
obviously here. If confirmed, this is going to be a top 
priority, working on not only Yemen but the other three famine 
or near-famine states and working very closely with my 
colleague, if he is confirmed with me, to coordinate both the 
kinetic aspects of responding to these disasters, as well as 
the humanitarian.
    Senator Young. So continuing with Yemen, let us consider 
the sustainable development goal of zero hunger. According to 
the U.N., there are 6.8 million people in Yemen on the brink of 
starvation. These people are not worried about sustainable 
development goals a decade from now. Of course, they are 
worried about where their next meal is going to come from, 
where their family's next meal is going to come from, their 
friends', and so forth.
    Consider the sustainable development goal of clean water 
and sanitation. Due in part to the lack of both of these, it is 
estimated that about 300,000 people in Yemen have now been 
infected with cholera, with more than 1,700 deaths. The scale 
of this crisis demands action not fatalism, and it sounds as 
though you have an action orientation. So that is fantastic.
    You spoke to the lack of participation of partners vis--vis 
this crisis. According to the U.N. Office for the Coordination 
of Humanitarian Affairs, the Yemen 2017 humanitarian response 
plan is only 33 percent funded. We still need $1.4 billion.
    Now, there are a number of countries, a number of partners 
that have nominally participated. They have committed to give 
more funds to Yemen to help address this crisis. They have 
committed to take action with great fanfare, and yet the money 
is still slow in arriving.
    If confirmed, Ms. Currie, will you look at the situation in 
Yemen and consider what countries that you can press to fulfill 
their financial and moral obligations in Yemen?
    Ms. Currie. Absolutely, Senator Young. If confirmed, this 
will, as I said, be one of the top priorities for the ECOSOC 
office. It already is a major priority of the ECOSOC team in 
New York.
    The unwillingness or inability of various actors to 
constrain their own forces that are harassing and making it 
impossible to deliver humanitarian assistance is one of the key 
factors. So, again, working with my colleague in Special 
Political Affairs, we have to tackle all of this. As you note, 
this a manmade famine. This is a famine that results from a 
conflict and not a natural disaster or weather event. And, 
therefore, most of the routes to resolving this famine lie in 
the political sector and dealing with the political crisis in 
Yemen.
    Senator Young. So I do not want to linger on Yemen because 
I want to have enough time to pivot to OPIC briefly. But there 
is another concrete action you can take. It is something I have 
been working on and it pertains to U.S.-funded cranes. These 
are cranes that are needed in the major port of Hodeidah in 
Yemen to offload food and medical supplies and help mitigate, 
help stanch this ever-growing humanitarian disaster. And there 
are things, as I see it, that can be done.
    If confirmed, will you look at this situation regarding the 
cranes working with our office and others and consider pressing 
the Saudi Government at the U.N. to permit delivery of these 
cranes?
    Ms. Currie. Absolutely, I pledge to do that, if confirmed.
    Senator Young. Thank you.
    Mr. Washburne and Mr. Bohigian, thanks for meeting with me 
in the office yesterday. Let me ask the question that may be on 
the minds of multiple members.
    In its fiscal year 2018 budget request, the Trump 
administration has proposed the elimination of OPIC. At the 
same time, you both have been nominated to lead OPIC. Can you 
concisely, in light of this uncertainty, indicate how you view 
your nomination and the role you would play at OPIC? Mr. 
Washburne?
    Mr. Washburne. Thank you, Chairman. That is the elephant in 
the room question. I am a builder and creator of jobs, and the 
President and his team know that I am a builder. I am not 
someone to sit there and look at an organization and wind down.
    But in light of that, the mission of OPIC is something that 
I believe in. I feel like I have got the right experience to 
grow it and continue to take its mission forward. But given the 
light that the President has proposed, I am willing to work 
with the committee and the administration in any way that you 
dictate us to go. OPIC currently has $22 billion in projects in 
162 countries. So to shut it down and flip a switch just would 
not be practical to do. And so, if confirmed, I look forward to 
growing it and proving to the committee, Congress, and the 
administration that OPIC is a valuable entity to go forward 
with.
    Senator Young. Well, I for one am encouraged by that 
response. And you rightly point out that someone would still be 
needed to manage the existing portfolio.
    Mr. Bohigian, anything to add to that, sir?
    Mr. Bohigian. Thank you for that excellent question and the 
excellent answer.
    I would just say that President's budget, obviously, is the 
start of the process, and if confirmed, Mr. Washburne and I 
look forward to being part of the conversation that Congress 
and the administration will have in the months ahead.
    Senator Young. Thank you.
    Mr. Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    Mr. Murray, as you know, the Alternate Representative for 
Special Political Affairs plays an important role in 
negotiating U.N. Security Council resolutions. Few tasks in 
diplomacy are more difficult than negotiating resolutions on 
critical peace and security issues with 14 other council 
members. It is made all the more difficult by the veto power 
enjoyed by four other members, including two, China and Russia, 
that are often at odds with our values. If confirmed, how do 
you intend to rally support at the council for U.S. interests?
    Mr. Murray. Thank you for that question, Senator Merkley.
    That is one of the huge challenges with the Security 
Council, and we have seen it play out in places like Syria 
where Russia has become so isolated within the Security Council 
and the world when it comes to resolution after resolution 
after resolution that they have vetoed. And that is part of the 
way the Security Council is set up. It requires us to have 
extensive conversations and deliberations before we put forward 
a resolution, and also, I think this is somewhere where we can 
get help from the United States Senate, as well as the 
administration, in dealing directly with Russia, in this case, 
or when it comes to North Korea, with China.
    Senator Merkley. So it is a very complex and difficult 
task, and if you are in this position, I wish you well in 
representing the United States.
    Let me turn to a different question. When we met before, 
you expressed doubt on whether human activities are causing 
climate disruption. Let us set that aside. Let us just 
acknowledge that 2016 was warmer than 2015 was warmer than 
2014, whether or not it was caused by human activities. Many 
national security experts believe that this climate disruption 
is a threat multiplier leading to increased instability around 
the world as societies clash over resources. Do you share that 
view of many national security experts? And your thoughts on 
how to address that issue in the context of the United Nations.
    Mr. Murray. I appreciate your leadership on this issue and 
the discussion that we had in your office.
    As Ambassador Haley has said, climate change needs to have 
a role, a position at the table, and when we are discussing 
these important issues, that we should make sure that is a 
metric that we include, and I agree with that.
    Senator Merkley. Let me turn to the challenge of our 
peacekeeping missions, which you have mentioned would be an 
important responsibility. The U.N. peacekeeping operations are 
tasked with increasingly complex mandates, and some, like 
MINUSMA in Mali, operate in places where there is no peace to 
keep. Are U.N. peacekeeping forces the right tool to address 
complex security situations like those present in Mali?
    Mr. Murray. Mali is the most dangerous peacekeeping 
operation. We have had, I believe, 77 peacekeepers killed to 
date. And you are right. The peace is not so much there to 
keep.
    This is where I believe the Security Council has to play an 
important role when they start to look at a peacekeeping 
operation. Obviously, you want to get somebody in there for 
humanitarian reasons and to protect the most vulnerable, and at 
the same time, if you design a mandate that oversteps its 
bounds, then you are setting a peacekeeping operation up to 
fail. And I believe that is incumbent upon the Security Council 
to plan that carefully and then to resource it properly.
    One of the foundations that goes back to the founding of 
the U.N., when you put in a peacekeeping operation, the host 
parties or the host country needs to be in agreement with that. 
It is one of the problems we are having in southern Sudan, or 
South Sudan now, is we have a government that is actually 
hindering this process. I traveled to southern Sudan with the 
Security Council a few years back, also to Darfur where we see 
the same issues with the host country government actually being 
a hindrance. And so those are some things that the Security 
Council needs to take very seriously and balance across from 
the need to protect the most vulnerable and to deliver 
humanitarian assistance.
    Senator Merkley. So often after a peacekeeping mission 
begins, facts on the ground can change. Are there any 
peacekeeping missions that you would put forward as examples of 
ones that should be shut down?
    Mr. Murray. Currently we are up to 15 peacekeeping 
operations. Now we recently shut down successfully the Ivory 
Coast and Liberia, which if it continues to plane as it is, I 
think will be another successful mission when that closes down 
in March of 2018.
    So I think the Security Council has the responsibility to 
look at the mandates that come up either biannually or 
annually. That is when we should have a lot more flexibility to 
tweak these peacekeeping operations, to tweak the mandates, and 
also to hold the leadership, as well as the troop-contributing 
countries, responsible to fulfill their mandate. As I mentioned 
in my testimony, it would be great to have a political solution 
so that we can accomplish that, as appears to be the case in 
Liberia, for example, and then we can shut that peacekeeping 
operation down, maybe transition it into a political operation 
to continue with some institution building and then that frees 
up troop-contributing countries and troops to go elsewhere such 
as Mali where right now--the size of Texas--we have only about 
10,000 or 11,000 peacekeepers. So those are the balances and 
the criteria I think that the Security Council needs to look at 
when it comes to peacekeeping operations.
    Senator Merkley. You mentioned the mission in South Sudan, 
UNMISS. And one of the things that developed there is that 
people were fleeing violence and tens of thousands descended on 
the compounds in Juba seeking shelter and as fighting spread 
outside the capital, several other UNMISS bases became de facto 
displacement camps referred to as protection of civilians 
sites. And currently UNMISS is providing physical protection to 
more than 200,000 civilians at six sites around the country.
    It raises a whole host of questions about how the mission 
has been transformed. But do you support this role of the U.N. 
in providing this protection to these civilians, and is this a 
strategy or this tool, the protection of civilians, that should 
perhaps be used elsewhere?
    Mr. Murray. That is a very good and a very difficult 
question, Senator Merkley.
    You look at all of those POCs, as you pointed out, where 
there are some almost a quarter of a million citizens being 
protected by peacekeepers. I do not want to pull them out 
because that makes those citizens vulnerable. That makes the 
most vulnerable at risk. At the same time, I think it is 
important to look at what we do at the outset with a mandate, 
and I think a lot more pressure is needed on the leadership and 
the disparate parties down in South Sudan in order to mitigate 
these threats to the individuals, to carve out a political 
solution, and then move toward implementing that solution.
    Senator Young. Thank you, Mr. Murray.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    I would like for the record to reflect that while I was a 
little bit late to the committee, I was right on time to hear 
Ms. Currie speak. She is from Thomasville, Georgia. I think I 
met her in 1990 in the Thomasville Rose Parade in Thomas 
County, Georgia when I was running for Governor of Georgia, and 
she was a senior at the University of Georgia. Is that not 
right?
    Ms. Currie. Actually we met in Professor Charles Bullock's 
class in 1990 when you were running for Governor, and you came 
and spoke. I was not in the Rose Parade. I was busy at school, 
but yes, we did meet in 1990.
    Senator Isakson. Well, I do not forget a pretty face, and I 
knew we had met somewhere. And when you run for Governor of 
Georgia, you always start in Thomasville at the Rose Parade and 
work your way up to Atlanta by the end of the race.
    But we are very proud to have you nominated and we are glad 
to have you here. We are glad to have all of you here. And I am 
going to have a question for you in just a minute.
    Mr. Murray, I really appreciate your answer in response on 
the question about should we be involved in peacekeeping 
missions and your reflection on the issues of those 15 that we 
currently have in the world. Is that right?
    Mr. Murray. Yes, Senator, 15.
    Senator Isakson. I was the second Member of Congress to 
ever go to Darfur, and if any of you have ever been to Darfur, 
you thank God there is a peacekeeping mission of the United 
Nations because if they were not there with mostly South Korean 
troops and a couple other smaller countries like that, 
countries like the United States would be implored because of 
our social conscience to do it or take on that effort in one 
way or another. So while the U.N. is problematic in a number of 
ways in things that it does, it can be central to solve 
problems that seem insolvable. And I appreciate your attitude 
towards the peacekeeping missions. I hope you will work to make 
them as accountable as possible. But we cannot turn our back on 
the least fortunate in this world, those that are as oppressed 
as the people in Darfur because somebody somehow has got to 
come to their aid. And I would like any comments you might have 
on that.
    Mr. Murray. Well, thank you very much for that, Senator. I 
spent some time in Darfur as well, and I completely concur with 
your assessment. When you have a group called Janjaweed there, 
which translates into ``devils on horseback,'' preying on the 
local populace, this is why we have a United Nations. And I 
think they have been pretty effective.
    Also, one of the reasons I like Darfur, as well as what is 
going on in Somalia, is our evolving ability to work with 
regional groups. The Darfur peacekeeping operation, Senator, as 
you know, is a hybrid with the African Union, and we have 
actually drawn down some of the U.N. troops because we built up 
those African Union troops. The same with what is going on in 
Somalia with the fight against terrorist groups there like Al 
Shabaab.
    So these are the kind of things that are exciting to me, if 
I am confirmed, that we can work with regional groups, as well 
as evolve peacekeeping and how we look at it in the Security 
Council with the Department of Peacekeeping Operations and the 
Department of Field Support in order to make it more efficient, 
more nimble and maybe save a few taxpayer dollars at the same 
time.
    Senator Isakson. Well, the U.N. is not a very popular 
institution in Georgia, and a lot of people think we waste a 
lot of money sending it to the U.N. But if you have ever seen 
the role they play in these peacekeeping missions, as you 
mentioned in South Sudan, with the conference peace agreement 
where we tried to make a difference there, which obviously fell 
apart in large measure, but you would appreciate the work that 
they do for the world. And one of these days, this effort is 
going to materialize into friends of the United States, friends 
of peace and liberty, not the type of evil things that are 
going on in Africa right now.
    Ms. Currie, you are an honor graduate of the University of 
Georgia, magna cum laude or cum laude, one of the two.
    Ms. Currie. Just cum laude.
    Senator Isakson. Neither one of which I achieved.
    Senator Kaine. Thank you, Laude.
    Ms. Currie. Just cum laude, sir. Thank you.
    Senator Isakson. After leaving the University of Georgia, I 
note she had a quick stint on Hilton Head Island, which 
everybody ought to go through once in their life, to earn a 
living waiting on tables. But from there you went straight to 
Washington and went straight where?
    Ms. Currie. I came to work on the Hill, sir, and I worked 
for my home State Congressman from Georgia, Sanford Bishop, for 
a year and then went to work for a great Member of Congress, 
who I had interned with, John Porter in the House.
    Senator Isakson. Yes. Sanford is a great Representative 
from our State, and John Porter is one of the finest people you 
would ever want to meet and did so much good in the arena that 
you are going to be working in so much in terms of the United 
Nations.
    Ms. Currie. I could not agree with you more, sir.
    Senator Isakson. With regard to the United Nations, my plea 
to all of you is to help elevate the influence and the role of 
the United States in the operation of the United Nations. Every 
time they do good things, they turn around and appoint somebody 
like Iran the head of the Human Relations Council or Committee 
and do something that is just unfathomable consideration-wise. 
But it is a valuable tool for us.
    I know in OPIC and the number of investments that the 
United States makes around the world where we can use the 
economic power of the United States and invest in things that 
create jobs and opportunity for people in oppressed countries 
and depressed communities, then we are going to help create 
more and more friends around the world.
    Lastly, from time to time, there is a critical vote that 
makes a large difference in which way the body politic goes in 
the world today. One of those big issues in the next few years 
ahead is going to be the Palestinian issue, which raises its 
head oftentimes in the United Nations. As you interact with the 
countries you will be interacting with particularly, Mr. 
Murray, some of the things you have talked about in terms of 
those countries, their votes are going to be critical to us to 
help us influence the direction of the U.N. in terms of which 
way we go in terms of Palestinian recognition or no recognition 
thereof or something in between. So I urge you to keep in mind 
the perspective of not just your job for what it is at ECOSOC, 
but also the job to win more friends and influence more of our 
enemies on the U.N. stage so that when they go to vote, they 
will vote with a positive image of the United States of America 
and what we are trying to accomplish through the U.N. rather 
than be an obstacle for us on the issues we stand for like 
Israel and other things like that.
    So I wish you the best. I am proud of your nomination. We 
are glad to have another Georgian come in. If I can ever help 
you, let me know.
    Ms. Currie. Thank you so much, Senator Isakson. It is a 
great honor to have your support, and I really appreciate your 
kind words especially about Thomasville, my wonderful hometown. 
I think that actually may have been my sister Emily who was in 
the Rose Parade that year. I will have to ask my mom. She is 
back here. So maybe she can clarify all that.
    But, yes, the issues that you raise are critically 
important for the work that we will be doing. And I take your 
message very much to heart and, if confirmed, look forward to 
working with you and the rest of the committee members to 
implement these things.
    Senator Isakson. Congratulations to all of you and best 
wishes.
    Senator Young. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all very much for your willingness to serve this 
country.
    Mr. Washburne, I was encouraged by your comments about 
taking over at OPIC with the idea of growing the agency and 
being more productive because I was very distressed when I saw 
the budget proposal from this administration that would phase 
out OPIC, an organization that I believe has been very 
important to businesses throughout the country. In New 
Hampshire, we have about $115 million in projects that have 
helped small businesses in our State, and it has been very 
important.
    So can you share with us whether you have any understanding 
with the administration about what your role will be as the 
head of OPIC? Was there a request from the administration when 
they nominated you for this position that you would phase out 
the agency as President?
    Mr. Washburne. Thank you, Senator, for the question.
    No, there was never any specific discussion at all about 
phasing the agency out. Again, I run a private business in 
Dallas. I got a great life. I do not need to come up here and 
shut something down. I am a builder and a grower. And if I 
thought I was coming up here just to melt something away, I 
would melt in Dallas in the heat today. [Laughter.]
    Senator Shaheen. Well, again, I am encouraged to hear that.
    You know, one of my favorite statistics is about the 
number. We have only about 1 percent of small and medium-sized 
businesses who do business overseas, and yet large businesses 
have that opportunity every day. And one of the challenges I 
believe we have is to help those small businesses, in 
particular, through organizations like OPIC, through the EXIM 
Bank. They have been so important to success for smaller and 
medium-sized businesses in successfully trading overseas. And 
so I hope that you will continue that role as the head of OPIC 
and with Mr. Bohigian that the two of you will preside over an 
expansion of OPIC in a way that helps small businesses in this 
country create jobs because that is our goal.
    I wanted to ask you, Ms. Currie. I was very pleased to see 
your statement about the importance of empowering women, 
something that I think is absolutely critical, and as we look 
at how do we raise the economic prosperity of countries around 
the world, we know that empowering women is a very important 
piece of that, that women tend to give back more not just to 
their families but to their communities and that that is 
important in developing economic opportunities.
    One of the areas where I think it is very important to help 
empower women is--where the U.N. has been very important is 
through UNFPA because they have provided women access to the 
ability to determine their--to plan their families and that 
affects everything from domestic violence to what kind of job 
opportunities they get in the future to their education.
    So can you tell me whether you think we should continue to 
support UNFPA in funding?
    Ms. Currie. Thank you for that question, Senator Shaheen.
    As you know, according to the Kemp-Kasten determination 
that the Department made, they are rescinding $32 million in 
funding to UNFPA. And those funds will be redistributed through 
global health programs by USAID so that there will not be 
breaks in service and that women will continue to have access 
to important family planning and other care that they need to 
manage their lives, birth spacing, and all of the key issues 
that you raise that make it possible for women to engage 
economically, politically, and to fully participate in the 
lives of their countries.
    If confirmed, I look forward to participating in the 
discussion in the next fiscal year and looking at the Kemp-
Kasten determination and whether UNFPA has made the kinds of 
reforms that will allows us to participate in their work again. 
And that is all I can offer to do at this point.
    Senator Shaheen. The experts that I have talked to have 
suggested that Kemp-Kasten is not an issue with UNFPA, that 
that is a red herring and that in fact the ability to 
distribute those dollars through other organizations to be as 
effective is really not going to achieve the same outcomes. Do 
you think we are going to be able to be as effective by 
distributing dollars through those other organizations?
    Ms. Currie. Well, as you know, I was not part of the 
discussion or the decision. So I would have to refer you back 
to the State Department and the people who did make that 
determination, what the basis for their determination that 
UNFPA was in violation of the Kemp-Kasten provisions.
    And I think that USAID has excellent partners in women's 
health and global health that they can utilize, and they are 
working very hard. And I would refer you to them about how they 
plan to continue to provide these services.
    Senator Shaheen. Well, thank you. I look forward to seeing 
your ongoing efforts to continue to work to empower women 
because I think that is a critical piece of what we need to do 
and what we need to do if we are going to provide economic 
opportunities around the world.
    Mr. Murray, I am very pleased to hear your comments about 
the importance of peacekeeping missions. This committee had a 
chance to meet with Secretary-General Gutierrez not too long 
ago where he talked about the importance of reforming the 
peacekeeping operations. And I know he is working very closely 
with Ambassador Haley to try and do that.
    But one of the concerns I have is that one proposal to try 
and reform peacekeeping would be to decrease the resources that 
are available. Is that something that you believe is important 
as we look at all of the challenges we have around the world, 
that cutting off their money is a way to reform them?
    Mr. Murray. I appreciate that question, Senator.
    In terms of the budget with peacekeeping operations, what 
we have seen since Ambassador Haley has arrived at the United 
Nations as our Permanent Representative, they have negotiated a 
new budget, and it is $500 million less than it was last year. 
And part of that comes from some cost savings, a couple of 
things that we have already mentioned such as the hybrid 
operation in Darfur where the African Union is taking a larger 
role, enabling us to pull some U.N. troops out, saving money 
there, closing down the operation in Ivory Coast, transitioning 
the operation in Haiti from a peacekeeping operation into 
something that is more institution building, especially with 
regard to rule of law and having more police forces there than 
troops. And finally Liberia, which I alluded to earlier, is on 
a glide path to close in March of next year after they 
hopefully go through some elections which, by the way, if they 
have successful elections, this is the first time since 1944 
that Liberia will have had a peaceful transition of power. So 
those are the kinds of cost savings, Senator, that I think that 
we should look for, and that is all under the rubric, as I was 
mentioning earlier, about goal-oriented peacekeeping with a 
defined political objective that we can achieve and then 
declare victory and go home.
    Senator Young. Thank you, Mr. Murray.
    Senator Coons?
    Senator Coons. Thank you very much, Senator Young, Senator 
Merkley, for convening this hearing and to our four nominees 
before us today for your willingness to serve or continue 
serving our Nation. I was grateful for the opportunity to meet 
with several of you before today's hearing.
    I support the Overseas Private Investment Corporation. I 
had the same question that Senator Shaheen did about the 
tension between the administration's budget proposal and the 
intentions of Mr. Washburne and Mr. Bohigian. And I was pleased 
to hear your answer, and I was encouraged by our private 
conversation before this and by your opening statement and by 
the impressive dedication that you and your family have shown 
to engaging personally in the work of building in the 
developing world.
    More and more of the money that is making a difference in 
the developing world comes from private sector sources. And so 
I think having at the helm folks in OPIC who understand the 
importance of development finance and the disciplines of the 
private sector could be a real contribution.
    There is also a huge demand for more development financing, 
and our competitors in Asia and in Europe recognize that. And 
so the developing nations of Africa, Latin America, and Asia 
have increasingly looked to Chinese and European sources rather 
than American because ours are so limited. I am hopeful that we 
will work together in a bipartisan way on this committee not to 
reduce the scope and capability of OPIC but to actually expand 
it and to strengthen it. I hope to see us take up legislation 
to reform and improve the way that the United States Government 
pursues development finance, and I am pleased we had an 
opportunity to discuss those ideas. So let me jump into that, 
if I might.
    Mr. Washburne, can you just explain to me and to critics 
not here I think today the value of OPIC and why it returns 
value, not just money to the Treasury, but value to the 
American people and whether you believe that it crowds out 
activity in the private sector as some critics of OPIC have 
suggested?
    Mr. Washburne. Thank you, Senator Coons, and thank you for 
your time and our discussions last week.
    As we discussed in the meeting, OPIC has a very unique--it 
is not crowding out people in other countries. We are actually 
crowing in. And what I mean by that is we are going to 
countries where banks will not go, companies will not go. 
Companies do have to put a substantial amount of risk capital 
in place which sitting on loan committees of banks, I always 
like to see. I never like to see someone to get 100 percent 
loans. They have got risk capital in place. But before someone 
can acquire a loan guarantee, political risk insurance, they 
have to prove--it is a very, very stringent underwriting 
process that you have to go through at OPIC to show that you 
cannot get money from any other source or insurance product 
from anywhere else.
    We currently have $22 billion out. Only $4 billion of that 
is in insurance. And so a lot of the criticisms come in the 
political risk insurance. But there are some countries you just 
cannot get insurance in at all, and without OPIC there to do it 
to protect American interests, there would be no way we could 
go in there and do business.
    Senator Coons. I think as you demonstrated, you know by 
time spent in Lusaka and elsewhere in the developing world, 
that in countries like that, if we want there to be an American 
private sector footprint, without OPIC it is not going to 
happen. I agree with you.
    I would be interested in hearing from both of you, if I 
might, what reforms to OPIC you would pursue, if confirmed, to 
make it more effective, how you plan to convince other 
administration officials of OPIC's positive and constructive 
role in mobilizing private sector development, and what work 
you might want to do with this committee to help advance those 
reforms or improvements.
    Mr. Bohigian. Thank you, Senator, for that opportunity.
    I believe OPIC represents the best in American values, and 
the administration has opened a process whereby we can 
reexamine across the Government how to reform agencies such as 
OPIC. So I know Mr. Washburne and I look forward to being part 
of that discussion.
    Additional authorities for OPIC could include what 
counterparts in development finance institutions overseas have 
such as direct equity investments, which is something that the 
development community in the United States has long looked for 
to be able to promote American jobs here, as well as American 
values abroad. When you look at, as you mentioned earlier, our 
European and Chinese counterparts who are truly investing 
trillions of dollars in these sort of efforts, America is ready 
for a 21st century OPIC.
    Beyond that, critics have called OPIC market-distorting, 
and we believe that over the last 15 years, many of those 
objections have been answered, whereas Mr. Mosbacher, who is 
here in attendance today as a former President of OPIC, Mr. 
Watson, as well as Elizabeth Littlefield, have worked with this 
committee and Congress to ensure that at a transactional level, 
as Mr. Washburne stated, each and every transaction is looked 
at for any sort of market distortion, including a certification 
on the insurance side, that this business will not distort the 
market. That is true through the Office of Investment Policy, 
through the President's office, through the board, and through 
oversight through committees such as this.
    In addition, critics have also said that we need to look at 
the ability for having additional tools throughout reorganizing 
the U.S. Government. That could include working with the 
Millennium Challenge Corporation more closely, USAID more 
closely, and certainly through coordination with the board of 
OPIC in the interagency process.
    So I think this conversation that this committee has led in 
conjunction with the President's budget proposal truly allows 
OPIC the chance to begin a conversation about what development 
finance should look like in the 21st century. And if confirmed, 
I welcome that conversation.
    Senator Coons. Well, I am optimistic that both of you will 
find in your engagement with OPIC that there is a thorough and 
rigorous review process, a motivated and capable staff, and 
that this is a role that we should be working together to 
strengthen so that we can be a more effective partner in 
development around the world, and I look forward to doing that 
with both of you.
    I have additional questions for the other two witnesses, 
but my time is up and I will either submit them for the record 
or wait for a second round. Thank you.
    Senator Young. Thank you, Senator Coons.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to all. Congratulations to all for your 
appointments--or your nominations. We would not presume for 
your nominations but each of you have a significant public 
service record.
    I am going to pretty much focus on the OPIC question too. 
There is an old line that everything that needs to be said has 
been said, but everybody who needs to say it has not said it 
yet. And I want to emphasize the importance of OPIC in 
Virginia.
    Before I do, I want to acknowledge one of my predecessors 
as Governor of Virginia. Governor Gilmore is here. And I think, 
Mr. Chair, you acknowledged him too, a fine public servant. I 
just want to recognize him.
    OPIC really helps a lot of Virginia businesses. I do not 
get lobbied from Virginia businesses saying this is a bad 
thing. It should be reduced. It should be shut down. I know 
there are some criticisms in the ether about OPIC, but this is 
not what I am hearing from Virginia businesses. What I am 
hearing about OPIC and similar agencies like the EXIM Bank is, 
frankly, we need more support, and this is really critical to 
enabling private sector businesses in America to succeed. So I 
am confused with the budgetary proposal.
    First, let me just make sure I am right about this. The 
quote from the President's budget on this is that they want to 
engage in activities to, quote, initiate orderly wind-down 
activities. And there is money allocated in the 2018 budget 
proposal, $60.8 million to, quote, initiate orderly wind-down 
activities.
    My understanding is that OPIC is not a drain on the general 
fund budget, but OPIC actually returns money to the general 
fund budget. Am I correct about that?
    Mr. Washburne. Yes, sir, approximately $300 million a year.
    Senator Kaine. $300 million. $2.3 billion has generated for 
the federal budget in the last 6 years. I mean, this is 
returning dollars.
    The pronunciation of your name, sir.
    Mr. Bohigian. Bohigian. It took me 5 years to learn.
    Senator Kaine. You were talking about sort of critics' 
arguments about OPIC. Have either of you had discussions with 
the administration? What did they say about the reason that 
they want to wind down OPIC?
    Mr. Bohigian. I think within the administration there is a 
range of opinions that you would expect from any executive 
branch. Certainly, if confirmed, we look forward to continuing 
those conversations with executive branch officials. But I 
think if you look at the OPIC budget page in particular, they 
have left open the opportunity to reform OPIC. They say that 
over almost 10 years OPIC has not had the chance of 
reauthorization, which has left it open to critics who are 
looking for reform. So I think it is a first step in putting 
OPIC on a 21st century footing.
    Senator Kaine. Mr. Washburne?
    Mr. Washburne. As you mentioned, with this committee and 
also with Congress, in our meetings with several members around 
this table, we hear the same thing back. You know, 75 percent 
of OPIC's loans are to small businesses. Less than 8 percent is 
to Fortune 500 companies. It has less than a 1 percent loan 
loss. I mean, when you look at that----
    Senator Kaine. Which any private lender would just kill for 
that. Would they not? I mean, it is fantastic.
    Mr. Washburne [continuing]. It has staff of around 250 
people. It is an amazing group they put together. They have 
been in business since 1971. It is really a shining example for 
what government could be. And that is why I am excited about 
going in. I do not have to reform it from the standpoint of 
something that has issues.
    The reform we want to bring in is more of bringing it into 
the 21st century on financing mechanisms because when it was 
set up originally, it was a leftover after the Marshall Plan 
and USAID and it was formed on its own. Really more than 
anything else it was a political risk insurance facility to 
have for people to go into developing countries where no one 
would go into.
    Well, the way businesses evolve today, people look at the 
expertise of OPIC to go into some third world countries like, 
as I mentioned earlier, Zambia which we know well. American 
businesses are not going to go in there. And this is a way to 
have a soft diplomacy. It is a great foreign policy tool for 
the U.S. Government, and we think it is something that we are 
excited to get in and try to find some other financing vehicles 
we can put with the toolbox we have and expand its scope.
    Senator Kaine. I think everybody on this committee is very 
familiar with arguments about this sector is crowding out my 
sector. We all are in tug of wars between banks and credit 
unions, for example. They are crowding me out. No, they are 
crowding me out. We just do not hear this about OPIC. We are 
not hearing from private sector financial institutions or 
others that OPIC is blocking other private sector entities from 
being involved. So I am puzzled about this one, but I am 
heartened by your discussion that comments with the 
administration suggest an openness to reform.
    This is part of a bigger pattern. We are grappling, for 
example, with an overall State Department, USAID budget that is 
dramatically reduced. And when we have talked to the Secretary 
of State about it, I would have felt really good if he had said 
we need to reform how we spend. We can spend more effectively. 
Instead, what we are being told is we cannot spend that money 
anyway. I know what other nations are doing around the world in 
terms of trying to build relationships, invest, find allies, 
find trade. I know what they are spending. And so when there is 
an attitude that, well, we do not need these agencies, it 
causes me great concern.
    So I am heartened by your discussion that maybe, you know, 
10 years after the last reauthorization, it is time to think 
about reforms that can make the dollars that we do spend on 
OPIC, the effort that we pay to OPIC even more productive.
    And with that, I am going to cede the rest of my time. My 
colleagues and I--we would love to work together with you on 
reform to make OPIC even more effective. But I know this. 
Virginia businesses will consider it a real loss to them. Just 
to extend beyond, we are in a global economy now. Your ability 
to find deals and customers around the world is a sine qua non 
of being economically powerful. And if you remove organizations 
and institutions that help you do that, we are really just--it 
is like eating our seed corn. We are going to hurt ourselves. 
So let us help our businesses, not hurt them, and if reform is 
part of it, you will find a lot of willing partners. If a wind-
down is part of it, I think there is going to be some 
significant opposition to that.
    Mr. Washburne. Yes, sir.
    Senator Kaine. Thanks, Mr. Chair.
    Senator Young. Well, I thank my colleagues for their 
thoughtful comments and questions. I understand Senator Merkley 
would like an additional 5 minutes. So we will give him a 
second round, and I believe everyone else is fine. So Senator 
Merkley?
    Senator Merkley. Thank you very much, Mr. Chairman.
    Mr. Murray, I think it is probably good to give you a 
chance here to address one of your comments that may come up 
among members, and that is when you wrote that government is a 
massive parasite putting us on a path to civil unrest--I am 
summarizing and shortening it--a failed government of career 
politicians of both parties have the problem. And then you go 
on to call for an Article V convention.
    In this case, as you talk about government being this 
problem, how will you in your position at the U.N. make sure 
that our U.N.-governmental team does not become part of the 
problem?
    Mr. Murray. Thanks for the opportunity to address some 
comments from my book. The intent of those comments had to do 
with my concern as a private citizen at that time with our 
excessive federal debt. I have heard a former Chairman of the 
Joint Chiefs of Staff, as well as Senator Hillary Clinton, 
mention that our federal debt is one of the biggest, if not the 
biggest, threats to our national security. And as an individual 
who spent his adult life in the military, that was of great 
concern to me. And that was the nature of those comments. I am 
looking for a way to mitigate that.
    Senator Merkley. Thank you.
    Ms. Currie, I want to go back to the question that Senator 
Shaheen was asking about, the UNFPA, Family Planning 
Association. It has a record in the Zaatari refugee camp in 
Jordan of facilitating care for 7,400 women who gave birth to 
7,400 babies without a single baby or mother dying, which is 
rather extraordinary in a refugee zone. And they work in areas 
of conflict and refugee camps around the world in pursuit of 
enabling children to get a good start in life with the type of 
health care that they have been providing. Would it not make 
sense to keep empowering the UNFPA?
    Ms. Currie. Thank you for the question, Senator Merkley.
    Again, as I said with Senator Shaheen, I was not part of 
those discussions. I would have to refer you back to the people 
at the State Department who made the determination under Kemp-
Kasten that UNFPA was not the appropriate vehicle for U.S. 
funding for family planning internationally. And my 
understanding is that USAID is working hard to try to make sure 
that there are not gaps in service and that the organizations--
as you know, UNFPA also contracts out much of its work to other 
organizations, and it is possible for the United States through 
USAID and other mechanisms to fund those same organizations 
bilaterally rather than through the multilateral vector of 
UNFPA.
    And I would add further that I think that the United States 
is always open, and it has been my understanding over the years 
that this issue has come up in various contexts where I have 
worked on it, whether it was on the Hill as an appropriations 
staffer when a lot of this legislation was coming up, that we 
are always trying to work with UNFPA to try to deal with the 
problematic issues, which in this case is, my understanding is, 
a finding related to China and the coercive elements of their 
family planning program.
    Senator Merkley. So I would just like to note that UNFPA, 
for the record, does not provide any financing for abortions, 
does not conduct any abortions, and has had an extraordinary 
record of supporting successful pregnancies and births in very 
difficult settings.
    And I think there will be children and women hurt by this 
decision. And I know you referred me back to others, but I was 
looking for your opinion on it. But I will not put you under 
further pressure on it since you have had a couple chances to 
respond to it.
    But let me ask about something different. We have 20 
million people facing starvation, a high threat of starvation 
over the next 6 months due to the four famines. And ECOSOC's 
humanitarian affairs segment is a unique platform that brings 
together the member states, U.N. organizations, humanitarian 
and development partners, the private sector, and affected 
communities. Has the U.N. responded quickly enough and, if you 
will, effectively enough, or what more should be done? And 
should we commit more resources, more United States resources?
    Ms. Currie. The four famines, as we have all discussed, is 
an epic tragedy and failure of multiple political actors to 
conduct themselves in a humane fashion. The conflicts that are 
driving these famines are not going to be solved by 
humanitarian assistance. We can only attempt to alleviate the 
human suffering in the short term, but the long-term answer to 
these problems is political in nature.
    UNOCHA very quickly worked together with other humanitarian 
actors, including the ICRC, to come up with a coordinated 
appeal. Unfortunately, as Senator Young said, the response has 
not been what one would hope, especially considering the 
involvement of certain countries in some of these conflicts and 
their ability to marshal substantial resources to improve the 
situation. Not just financial resources but also use their own 
influence to make access easier and more safe and get the 
resources to the people who need them the most.
    The fact that in Yemen 60 percent of the population is food 
insecure is beyond belief. This is not something that is going 
to be solved quickly. The political solutions need to be 
addressed in the Security Council and through the political 
mechanisms, bilateral, multilateral, whatever we can throw at 
this problem. We need to be working them.
    But on the humanitarian side, I think that the effort that 
UNOCHA is trying to put together with its partners is 
sufficient to meet the short-term needs. It is just a question 
of the member states coming up with the resources, and if 
confirmed, I really hope I can work with you to help marshal 
other countries, other partners to bring those resources to 
bear so that we can all tackle this together because we cannot 
solve it ourselves. The United States cannot resolve these 
problems. We need a lot of teamwork from a lot of other actors 
who are more involved in them directly.
    Senator Merkley. Thank you.
    Senator Young. Thank you, Senator Merkley, to you and your 
team for your continued partnership on this sub committee.
    I want to thank our nominees again for your thoughtful 
responses and for your testimonies.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record. We ask the nominees to 
respond as promptly as possible. Your responses will also be 
made a part of the record.
    I want to note the presence of Senator Gardner for the 
record.
    And with the thanks of the committee, this hearing is now 
adjourned.
    [Whereupon, at 11:27 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

       Responses to Additional Questions for the Record Submitted
            to David Bohigian by Senator Benjamin L. Cardin

Human Rights
    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Assistant Secretary of Commerce, one of my proudest 
efforts was an initiative that I launched to provide forums for small 
businesses around the world to exercise freedom of speech and to 
petition their government. The Entrepreneurship Initiative convened 
small businesses from the United States and host countries (including 
Brazil, Mexico, China and India) to speak directly to foreign 
government officials to press for pro-growth economic policies. I have 
always considered freedom of speech and the right to petition one's 
government among the most fundamental human rights. The very nature of 
entrepreneurship and job creation helps develop more democratic and 
engaged citizens. I am deeply gratified to see the impact of this 
project. Launched as a joint venture between the Department of Commerce 
and the Kauffman Foundation, the initiative attained global reach. 
According to the website, over 120 heads of state and ministers from 
more than 60 countries supported Global Entrepreneurship week in 2013.

Emoluments:
    Question 2. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the executive branch?

    Answer. If confirmed, I intend to follow the law and all 
appropriate procedures. Should questions about legal or ethical issues 
arise, I will consult with the lawyers and ethics officials at OPIC.

Diversity
    Question 3. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What is your plan to ensure that the 
workforce in your agency, at all levels, is diverse, and how do you 
plan to ensure supervisors and managers are equipped to manage their 
teams effectively?

    Answer. My fellow nominee and I are united in our commitment to 
diversity at OPIC. Creating a more diverse workforce isn't just the 
right thing to do it is the smart thing to do. Diversity can bring 
innovation to the marketplace of ideas, which is particularly important 
at a development institution, like OPIC, that works in every region of 
the world. We believe OPIC should lead by example if it is going to 
represent American values abroad.
    If confirmed, we will continue OPIC's current practices that 
include : (1) use of special hiring flexibilities to improve its 
competitiveness with the public and private sectors; (2) outreach 
initiatives to reach a highly qualified and diverse workforce with the 
skills needed for OPIC's mission-critical occupations; (3) 
communicating its EEO/diversity policy, program and OPIC's employment 
needs to all sources of job applicants; (4) increasing recruitment of 
veterans and persons with targeted disabilities as a means of achieving 
the 2 percent Federal goal for disability employment; and (5) 
increasing the representation of minorities and women in OPIC's 
officials and managers categories. Our focus on these commitments will 
support OPIC's continuing efforts to diversify its workforce, improve 
the overall representation of employees in the various EEO groups, and 
to remain a model employer.

    Question 4. The federal workforce has made progress in hiring 
diverse professions in most agencies. There is, however, work to be 
done to cultivate work environments where all employees feel valued and 
included. What plans do you have to ensure your agency leverages the 
diversity of its employees and develops an inclusive work environment?

    Answer. Prior experiences and challenges enrich a person's ability 
to think creatively and problem solve, which are qualities essential to 
OPIC's continued success. We believe diversity also fosters a sense of 
community which can strengthen communication within the workplace and 
ultimately enhance efficiency and effectiveness by encouraging people 
to work together to maximize resources and minimize time. It is 
important for leadership to imbue these ideals by consistently 
respecting and cultivating differences at the highest levels, and we, 
if confirmed, will work to ensure that OPIC upholds these ideals.
    Our goal is for OPIC to remain a model employer and have an 
inclusive workforce. We will ensure OPIC supports workplace diversity. 
OPIC will continue to focus on recruiting, retaining, and promoting a 
highly qualified and diverse workforce, based on merit and equal 
employment opportunity. Training managers and administrative support 
staff will be key to this effort. OPIC will comply with relevant EEO 
statutes and regulations, including the No FEAR Act (Notification and 
Federal Employee Antidiscrimination and Retaliation Act of 2002). OPIC 
will continue to train its workforce on the various Federal anti-
discrimination statutes, which also will help to promote workforce 
inclusiveness.



                               __________


       Responses to Additional Questions for the Record Submitted
             to Ray Washburne by Senator Benjamin L. Cardin

Human Rights
    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The most important actions I have taken in my career to 
promote human rights involve my family's volunteer work in Zambia. When 
my family and I first stepped foot in Lusaka in 2014, we were 
immediately struck by the lack of basic fundamental human rights. On 
our very first day, we visited the compound of Chaisa and observed the 
rampant poverty, pollution, and devastating hunger that stretched 
across this shantytown of approximately 100,000 Zambians.
    My family's humanitarian work thus has focused primarily on the 
children of Zambia. We volunteer for an organization which houses over 
700 orphans on the outskirts of Lusaka, and also provides medical care 
and other support to approximately 7,000 Zambians each summer. The 
funding that our family has committed to the organization provides for 
the care of over fifty orphans, including expenses to cover the child's 
school, food and housing. Most recently, our family has funded the 
construction of a school for three hundred students in the heart of 
Chaisa that is being built on the property of a former brothel.
    My work in Zambia has opened my eyes to the positive impact that 
America can achieve by devoting time and resources to projects in the 
developing world. If confirmed, I am confident that the perspective I 
have gained in Zambia will serve me well as the Chairman and CEO to 
ensure that OPIC's projects continue to promote human rights and 
democracy around the world.

Emoluments
    Question 2. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the executive branch?

    Answer. If confirmed, I intend to follow the law and all 
appropriate procedures. Should questions about legal or ethical issues 
arise, I will consult with the lawyers and ethics officials at OPIC.
Diversity:
    Question 3. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What is your plan to ensure that the 
workforce in your agency, at all levels, is diverse, and how do you 
plan to ensure supervisors and managers are equipped to manage their 
teams effectively?

    Answer. My fellow nominee and I are united in our commitment to 
diversity at OPIC. Creating a more diverse workforce isn't just the 
right thing to do it is the smart thing to do. Diversity can bring 
innovation to the marketplace of ideas, which is particularly important 
at a development institution, like OPIC, that works in every region of 
the world. We believe OPIC should lead by example if it is going to 
represent American values abroad.
    If confirmed, we will continue OPIC's current practices that 
include: (1) use of special hiring flexibilities to improve its 
competitiveness with the public and private sectors; (2) outreach 
initiatives to reach a highly qualified and diverse workforce with the 
skills needed for OPIC's mission-critical occupations; (3) 
communicating its EEO/diversity policy, program and OPIC's employment 
needs to all sources of job applicants; (4) increasing recruitment of 
veterans and persons with targeted disabilities as a means of achieving 
the 2 percent Federal goal for disability employment; and (5) 
increasing the representation of minorities and women in OPIC's 
officials and managers categories.
    Our focus on these commitments will support OPIC's continuing 
efforts to diversify its workforce, improve the overall representation 
of employees in the various EEO groups, and to remain a model employer.

    Question 4. The federal workforce has made progress in hiring 
diverse professions in most agencies. There is, however, work to be 
done to cultivate work environments where all employees feel valued and 
included. What plans do you have to ensure your agency leverages the 
diversity of its employees and develops an inclusive work environment?

    Answer. Prior experiences and challenges enrich a person's ability 
to think creatively and problem solve, which are qualities essential to 
OPIC's continued success. We believe diversity also fosters a sense of 
community which can strengthen communication within the workplace and 
ultimately enhance efficiency and effectiveness by encouraging people 
to work together to maximize resources and minimize time. It is 
important for leadership to imbue these ideals by consistently 
respecting and cultivating differences at the highest levels, and we, 
if confirmed, will work to ensure that OPIC upholds these ideals.
    Our goal is for OPIC to remain a model employer and have an 
inclusive workforce. We will ensure OPIC supports workplace diversity. 
OPIC will continue to focus on recruiting, retaining, and promoting a 
highly qualified and diverse workforce, based on merit and equal 
employment opportunity. Training managers and administrative support 
staff will be key to this effort. OPIC will comply with relevant EEO 
statutes and regulations, including the No FEAR Act (Notification and 
Federal Employee Antidiscrimination and Retaliation Act of 2002). OPIC 
will continue to train its workforce on the various Federal anti-
discrimination statutes, which also will help to promote workforce 
inclusiveness.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Kelley Currie by Senator Benjamin L. Cardin

    Question 1.What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I spent nearly five years working for Congressman John 
Porter as his staff director for the Congressional Human Rights Caucus 
and as his foreign operations appropriations associate. One of my 
greatest accomplishments during that time was the integration of our 
human rights advocacy into the foreign operations bills on a range of 
issues, including: limiting military assistance to countries over human 
rights abuses by their security forces; tightening restrictions on 
Burma; and expanding financial support to democracy and human rights 
promotion efforts, especially regarding Tibet, Burma and East Timor. I 
also helped to develop an "adopt a political prisoner" program that 
paired Members of Congress with Chinese and Tibetan political 
prisoners, and encouraged the Members to advocate for improved 
treatment and release of their 'adopted' prisoner. I vividly remember 
the day that I met Jigme Sangpo, the long-serving Tibetan political 
prisoner our office had adopted, after he was released and exiled to 
Switzerland on medical parole. It was one of the highlights of my life 
to see him free.
    After leaving Capitol Hill to work for the International Republican 
Institute (IRI), I was fortunate to work on implementing several of the 
initiatives we had legislated. As the program officer managing several 
of IRI's programs in Southeast Asia, I worked to help set up IRI's 
operations in Indonesia and Timor Leste, providing key electoral and 
governance assistance to those countries at the time of their 
democratic transitions. I also managed IRI's support to the Burmese 
democracy movement at a critical juncture, when the military junta was 
engaged in one of its most severe crackdowns. When Aung San Suu Kyi was 
released from house arrest in 2001, we arranged for video equipment to 
be provided to the National League for Democracy. They used this 
equipment to document Daw Suu's travels around the country, showing 
that she and the NLD retained their strength at the grassroots. This 
equipment also documented the attack on the NLD at Depayin, in which 
Aung San Suu Kyi was nearly killed.
    It also was during this period that I helped some former Burmese 
political prisoners to launch an organization to provide humanitarian 
support to, and conduct documentation and advocacy on behalf of, 
Burma's thousands of political prisoners. Today, the Assistance 
Association for Political Prisoners (AAPP) is one of the most important 
civil society organizations in the country and a key player in 
promoting legal reform as part of Burma's transition, but before 2012 
it was literally a lifeline for hundreds of political prisoners and 
their families. Over the past four years, Project 2049 has coordinated 
US support for AAPP through a grant from the Department of State's 
Bureau of Democracy, Human Rights and Labor.
    In addition to AAPP, I have worked with a number of other important 
Burmese organizations and individuals who are helping to push forward 
human rights and democracy in that country.
    My work with them has been among the most consequential and 
personally fulfilling I have done, even as the outcome remains unclear. 
By supporting the work of catalytic Burmese organizations and 
individuals through funding and demand-driven technical assistance, the 
small grants project we have been running at Project 2049 is helping to 
lay a strong foundation for a genuine democratic transition in Burma.
    My work on human rights in China and Tibet since leaving the 
Congress has been rather less rewarding in terms of broader outcomes 
but no less so in terms of the amazing advocates and human rights 
defenders I have had the privilege to work with. While focused on 
empowering Chinese and Tibetan voices, I have tried to find ways to 
keep pushing these issues even as the space for international advocacy 
on them has diminished over the past two decades. In the Office of the 
Special Coordinator for Tibetan Issues under Ambassador Paula 
Dobriansky, we worked to institutionalize the Tibetan Policy Act in 
U.S. policy and get important funding to efforts to preserve Tibetan 
culture inside Tibet. After leaving the State Department, I led the 
research, writing and editing of a report on cultural genocide in Tibet 
published by the International Campaign for Tibet. I have also 
continued to work with my human rights colleagues to keep human rights 
on the U.S. policy agenda with China, including by linking up my 
security-focused colleagues at Project 2049 with Chinese human rights 
defenders on research projects.

    Question 2. What are the most pressing human rights concerns in 
ECOSOC today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy at ECOSOC and with its 
member countries? What do you hope to accomplish through these actions?

    Answer. The U.N. Economic and Social Council does not formally deal 
with human rights questions on its agenda. However, the Economic and 
Social Affairs section of the United States Mission (informally known 
as the ECOSOC Section) covers human rights issues that come up in the 
Third Committee of the General Assembly.
    The most pressing human rights concerns in the General Assembly's 
Third Committee today include Iran, the Russian occupation of Crimea, 
the egregious abuses in the Syrian conflict, and the continuing human 
rights violations and abuses in the Democratic People's Republic of 
Korea. Of course, the protection of human rights is deeply intertwined 
with international peace and security, and situations in many 
countries, including for example the Democratic Republic of the Congo, 
are also addressed in other U.N. committees as well.
    In order to advance human rights and democracy at ECOSOC, I believe 
the U.S. resolution, advanced at the 2015 United Nations General 
Assembly, on strengthening the role of the United Nations in enhancing 
periodic and genuine elections and the promotion of democratization 
must remain a key priority. Other important resolutions facing the 
United Nations include those on the protection of journalists, 
protection of human rights defenders, the report of the United Nations 
Human Rights Council, including reporting on reform progress, and the 
resolution on freedom of religion and belief. If confirmed, I will 
continue to vigorously advocate for resolutions that advance these 
priorities.
    As always we will lobby like-minded states to improve the vote 
count on country-specific resolutions and to pursue the same priorities 
as ours; a large number of votes in favor sends a strong message about 
the global community's commitment to these issues. It is essential that 
the international community address human rights violations and abuses 
in these priority countries and regions, as they have a direct impact 
on U.S. security and prosperity.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face by ECOSOC member 
countries in advancing human rights, civil society and democracy in 
general?

    Answer. There are several potential obstacles to addressing human 
rights concerns in the aforementioned crises. Russia is unlikely to 
cooperate on resolutions regarding Crimea and Syria, and we must 
continue to urge China to play a constructive role with regard to the 
human rights and humanitarian issues in the DPRK. A critical step in 
addressing these issues, as well as those mentioned in my previous 
response, is to enlist member states to play constructive roles, 
including by voting affirmatively for country-specific resolutions that 
hold human rights offending countries accountable for their actions, as 
well as resolutions that call for the protection of human rights 
defenders and participation by civil society. At the same time, we must 
continue to maintain cross-regional support for resolutions on the 
human rights situation in those countries despite opposition from 
Russia and others, something we have historically been quite successful 
in achieving.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from ECOSOC member countries?

    Answer. The United States has long been a leader in championing the 
participation of NGOs, human rights defenders, journalists and others 
from civil society at the UN, and I intend to prioritize these issues 
during my tenure. If I am confirmed, I absolutely plan to engage 
closely with human rights, civil society, and other non-governmental 
organizations. Leadership on respect for human rights and fundamental 
freedoms is not possible without continued, close, and sustained 
contact with such organizations, whether they be based in the United 
States or in other ECOSOC member nations. If confirmed, I will 
regularly consult with such groups, pay attention to the challenges 
they face in their operations as well as the issues they address, and 
work closely with them to advance human rights at the United Nations 
Economic and Social Council.
    I am very concerned about the efforts undertaken by a number of 
governments to suppress the legitimate activities of civil society, 
including by human rights defenders, NGOs and journalists within the 
U.N. If I am confirmed, I will work hard to address reprisals against 
civil society representatives for their engagement with U.N. or other 
international human rights mechanisms. I will also address the lack of 
NGO accreditation by the U.N. ECOSOC NGO Committee.

    Question 5. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the Executive Branch?


    Answer. I commit to comply with all ethics laws, regulations, ?and 
rules, and to raise concerns that I may have through appropriate 
channels.


    Question 6. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. Throughout my career, I have benefitted personally and 
professionally from working with colleagues with diverse backgrounds 
and experiences. My personal approach to staffing is to find the best 
person for the job regardless of race, gender, religious or other 
background, but I have always gone out of my way to seek and promote 
candidates from underrepresented groups and diverse backgrounds. I have 
also found it deeply rewarding to mentor young women in the field of 
foreign and security policy. As staffing positions become available, if 
confirmed, I will work with the human resources officials of the 
Department to ensure that we are drawing from the broadest and most 
diverse candidate pool possible to ensure that USUN's ECOSOC team 
continues to lead the way as a rewarding and exciting office that 
showcases the best of America's federal workforce.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Jay Murray by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Thank you for this question. Most of my professional life 
has been serving in the U.S. Army. One important lesson I've learned in 
my service is that human rights are a core component of international 
peace and stability. Indeed the abuse of human rights is often the 
underlying cause of strife and violence. Additionally, facilitating 
democracy and representative government also serves to minimize human 
rights abuses.
    While serving in the Balkans I worked with the Organization of 
Security and Cooperation in Europe as an on-the-ground election 
observer in order to facilitate free and fair elections. In Kosovo, I 
also worked directly with the Kosovo Liberation Army in order to 
transform it into the peacetime Kosovo Protection Corps, as well as to 
help with institution building that would ultimately lead to Kosovo's 
independence. On my personal time, I frequently visited the local 
orphanage in Pristina, delivering food, blankets, bedding and toys.
    While serving at the United Nations, one of my roles was to work 
with the Department of Peacekeeping Operations and Troop Contributing 
Countries in order to deploy and maintain peacekeeping operations 
around the world. At that time we were focused on Darfur and Sudan. I 
deployed to both locations in order to get an on-the-ground perspective 
and to talk with government officials, the local population, and visit 
the refugee camps there. I also traveled to the African Union 
Headquarters in Ethiopia where we helped to negotiate what is now the 
hybrid U.N.-AU peacekeeping operation in Darfur. I understand the 
linkages between military/peacekeeping operations and the focus on 
human rights. If confirmed, I pledge to maintain that focus in the 
Security Council, and I look forward to working with you and this 
committee.

    Question 2. What are the most pressing human rights issues in U.N. 
peacekeeping operations and security cooperation activities? What are 
the most important steps you expect to take--if confirmed--to promote 
human rights and good governance in U.N. peacekeeping operations and 
security cooperation activities? What do you hope to accomplish through 
these actions?

    Answer. One of the most pressing issues in U.N. peacekeeping is the 
issue of sexual exploitation and abuse. Over the last several years, 
the U.N. has taken important steps to uphold the zero tolerance policy 
for sexual exploitation and abuse, especially in peacekeeping missions. 
The U.N. has instituted stronger vetting procedures and improved 
training for peacekeepers, enhanced transparency through regular public 
reporting on allegations, and strengthened accountability measures, 
including those outlined in Security Council resolution 2272. These 
measures should be continuously strengthened, expanded, and rigorously 
implemented.
    During his first six months, the Secretary-General has already 
demonstrated his strong commitment to addressing sexual exploitation 
and abuse. I support his attention to and prioritization of this issue, 
especially the renewed focus on putting victims first. I commend the 
work of the Special Coordinator, Jane Holl Lute, and her efforts to 
ensure that the U.N.'s approach to sexual exploitation and abuse is 
truly a system-wide strategy.
    If confirmed, I would continue to support the U.N.'s recent work in 
developing minimum standards for investigations and prosecutions of 
sexual exploitation and abuse. Member states must be more accountable, 
and more transparent, in their pursuit of justice for their nationals 
responsible for sexual exploitation and abuse. They must hold 
themselves, as well as the U.N., to the highest standards of 
accountability. By promoting a policy of zero tolerance, I hope we can 
preserve and promote the credibility and the legitimacy of U.N. 
peacekeeping and ensure the protection of civilians on the ground.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in peacekeeping 
operations and security cooperation activities in advancing human 
rights, civil society and democracy in general?

    Answer. One of the biggest challenges in U.N. peacekeeping today is 
holding troop- and police- contributing countries (TCC/PCCs) 
accountable for poor performance, including but not limited to cases of 
sexual exploitation and abuse. Certain TCCs have been reticent to 
properly investigate and punish incidents of sexual exploitation and 
abuse, even when they have been informed of these incidents by the U.N. 
In a letter to the Secretary-General on June 14, Ambassador Haley noted 
the importance of sending a strong message to all troop- and police-
contributing countries that performance will be monitored, and when it 
is found lacking, there will be accountability. Subsequently, the U.N. 
broke new ground by calling for the repatriation of troops from the 
Republic of Congo on the basis of the U.N.'s zero-tolerance policy for 
sexual exploitation and abuse. Ultimately, ROC responded by withdrawing 
the troops from the mission. I strongly support the highest standards 
of accountability and a performance-based approach in deciding which 
TCC/PCCs will participate in U.N. peacekeeping.
    More broadly, the United States continues to face challenges 
negotiating the human rights, civil society, and democracy components 
of U.N. peacekeeping missions in the Security Council given that not 
all Council members, host countries, or regional neighbors share this 
priority. The United States continually faces difficult negotiations 
with China and Russia over the inclusion of human rights advisors in 
missions, and host countries such as Sudan often fail to provide visas 
and access to human rights personnel. If confirmed, I will work to 
resolve these obstacles so that the U.N. can meet its ideals and 
advance our interests.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in countries with peacekeeping operations and 
security operations?

    Answer. Absolutely. The perspective of non-governmental 
organizations both in the United States and in countries with 
peacekeeping and security operations is invaluable in helping to 
understand the context in which we are operating. Non-governmental 
organizations that cover human rights, humanitarian issues, democracy, 
and peacebuilding are frequently on the forefront of providing in-depth 
reporting and analysis on important conflict dynamics and often have 
access to remote locations where others do not. If confirmed, I would 
adopt and widely encourage the practice of meeting with them.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will support continued implementation of 
the Leahy Law. I am aware that under the Leahy Law, the United States 
Government is prohibited from providing assistance to any unit of 
another country's security forces if the Secretary of State has 
credible information that the unit committed a gross violation of human 
rights. This law is well known around the world, and is an important 
component of our foreign policy, It provides the opportunity for open 
dialogue on human rights as well as an incentive for positive behavior. 
It is important to note that the law permits the Secretary of State to 
resume assistance to foreign security force units previously deemed 
ineligible if he determines that the foreign government is taking 
effective steps to bring the responsible members of the security forces 
unit to justice. This mechanism encourages foreign security partners to 
investigate credible allegations and hold accountable those 
responsible.

    Question 6. Will you commit to providing information to this 
committee if you become aware of emoluments from foreign governments or 
government-owned companies being directed to the President, his 
immediate family, or anyone else in the Executive Branch?

    Answer. I commit to comply with all ethics laws, regulations, ?and 
rules, and to raise concerns that I may have through appropriate 
channels.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. Thank you for this question. I agree completely with your 
supposition regarding the value of diversity. I've experienced it 
firsthand throughout my military career. I've served alongside of 
soldiers from diverse ethnicities and faiths. What we discovered is 
that regardless of background, we all wore the same uniform and we were 
all Americans.
    Over a decade of my service was deployed overseas, where I worked 
with military and political counterparts from multiple nations and 
faiths. I also served for almost five years at the United Nations where 
diversity is the norm. So I've seen the power and value of diversity 
firsthand. And that is precisely why, if confirmed, that I commit to 
promote, mentor and support individuals on my staff who come from 
diverse backgrounds and underrepresented groups. I believe it is the 
right thing to do, it is the American thing to do, and it will also 
enable us to be more successful within the U.N. Community.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Jay Murray by Senator Edward J. Markey

    Question 1. Colonel Murray, on July 11, 2016 you published a piece 
focused on domestic and national security in Newsmax. You concluded it 
by saying: ``Come November it's your choice sheep. Vote with the 
sheepdogs, or vote with the wolves,'' implying that a vote for your 
candidate's opponent was a vote for those who would attack the American 
people.

   Why did you choose such extremely divisive rhetoric to characterize 
        the national security choice before the American electorate in 
        last year's election?
   Do you stand by your characterization of the American electorate as 
        ``sheep''?

    Answer. Thank you for the opportunity to clarify. I wrote this 
article while I was a private citizen. It was not the intent of the 
article to be derogatory towards Americans. I have the utmost respect 
for the American electorate, indeed all Americans, so much so that for 
some twenty-five years I put my life on the line to protect and defend 
them.

    Question 2. Colonel Murray, in your book Government is the Problem 
you portrayed those serving in Congress as being adverse to the 
interests of the American people, describing those in serving in public 
office as being ``like cunning bacteria.'' By contrast, Ambassador 
Haley has consistently expressed an attitude of personal collegiality 
and mutual respect, and an understanding of the role and oversight 
responsibilities of Congress.

   Do you still stand by the views expressed in your book about those 
        serving in Congress?
   Do you believe members of Congress are ``like cunning bacteria?''
   Do you agree to work with members of this committee and our staffs 
        as we exercise our constitutional responsibility for oversight 
        of the Executive Branch's conduct of foreign relations?
   Will you respond promptly and completely to our questions and 
        requests for information?
   Do you recognize why many people see a propensity toward the kind 
        of extreme, divisive, and inflammatory rhetoric that you've 
        used in your publications as disqualifying for the position of 
        third-ranking U.S. diplomat at the United Nations?

    Answer. Thank you for this question. I hold both members of 
Congress and the institution in the highest regard. I wrote the book 
while I was a private citizen.
    One important lesson I learned while serving in the Army is that 
there are no political parties in the military--only Americans. I 
believe that is the case with the practice of diplomacy as well. 
Writing articles as a private citizen in the midst of a heated 
political campaign is one thing. Service to country is very different, 
and I understand that difference.
    Over a decade of my military service was overseas, including in my 
capacity as a military attache working daily with host country military 
and political counterparts. I also served at the United Nations for 
several years as the American representative to the U.N. Military Staff 
Committee. I learned that my words and actions as an American are 
watched very closely. That is a responsibility that is larger than 
self; I've felt it before and I take it very seriously. If confirmed, I 
pledge to serve in a capacity that is worthy of my post and of my 
country. I also commit to work with you and this committee to the 
utmost of my ability.

    Question 3. Colonel Murray, the President has nominated you for a 
critically important position representing the United States at the 
United Nations, including in the Security Council. Yet you seem to take 
a pretty dim view of that organization and of multilateral diplomatic 
initiatives generally.
    In your book Government is the Problem you blasted the ``Obama 
regime'' for pursuing a range of multilateral initiatives that are 
``arguably designed to constrain American power and wealth by chipping 
away at our sovereignty.''

   Do you still believe that multilateral diplomacy and agreements 
        undermine U.S. sovereignty?

    Answer. Thank you for the opportunity to clarify. In the course of 
my military service at the State Department and at the United Nations, 
I was constantly involved in multilateral initiatives, including in the 
Security Council, the General Assembly and inside the Secretariat. I 
know the strengths and weaknesses of those bodies very well, having 
been directly involved for several years.
    Moreover, as a soldier I served for over six years in NATO. I also 
worked directly with the Organization for Security and Cooperation in 
Europe on multiple occasions as an election observer in the Balkans. In 
Iraq, I was part of the Multi-National Force--Iraq. I am a graduate of 
the George C. Marshall European Center for Security Studies, an 
Institute that brings together military and political leaders from more 
than 152 countries. In short, I have a great deal of experience serving 
in multilateral organizations and initiatives.
    I wrote the book while I was a private citizen. While I may have 
been critical of multilateral institutions, it was because I know the 
potential they have, but they sometimes fall short when it comes to 
human rights and the maintenance of international peace and security. 
Those principles are not only the right thing to do, but they directly 
serve U.S. interests. If confirmed, I will work tirelessly to further 
those ideals, and I look forward to working with you and this committee 
to do so.

    Question 4. In May 2016 you wrote in Newsmax that ``David 
Petraeus's recent opinion piece in The Washington Post entitled `Anti-
Muslim bigotry aids Islamic terrorists' targeted Donald Trump's 
recommendation about curbing Muslim immigration. The retired general's 
accusations are typical of the rash of strawman arguments now common 
from the Obama/Clinton camps.''
    And in March 2016 you wrote in Newsmax that ``Muslims now comprise 
almost 25 percent of the Brussels population. Most have not assimilated 
and have no intention of doing so. At worst they're planning to kill 
their infidel neighbors, at best they protect and harbor those who are 
doing the killing.''

   Why have you made these kinds of generalized accusations against 
        Muslim people?
   How do you plan to work with your Muslim counterparts at the United 
        Nations?

    Answer. Thank you for the opportunity to clarify. Any inference of 
generalized disparagement of a single group, including Muslims, is both 
hurtful and inaccurate. I've served proudly and successfully alongside 
my Muslim counterparts on multiple occasions and locations throughout 
my adult life. In Kosovo, I worked extensively with Kosovar Albanian 
Muslims in support of their transition to a sovereign nation. In 
ethnically and religiously diverse Bosnia, I worked with Muslims, 
Orthodox Christians and Catholics to build a united military inclusive 
of all groups. In Iraq, I worked with a confidence-building committee 
comprised of Sunni, Shia, and Kurdish military officers. At the U.N., I 
worked with numerous Muslim military and political counterparts, 
including from Troop Contributing Countries, in order to successfully 
deploy Peacekeeping Operations. When I was a candidate for public 
office, I met with numerous Muslim groups, listened to their concerns 
and appreciated their support. I wish to make it clear that I have 
respect and tolerance for the Muslim faith.
    If confirmed, I look forward to working with my Muslim 
counterparts, as well as my counterparts of all faiths at the United 
Nations in support of international peace and security.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to Jay Murray by Senator Jeff Merkley

    Question 1. Colonel Murray, in our meeting before your confirmation 
hearing you expressed doubts about the human impact on climate 
disruption and on the need to ``act fast'' to address the issue. You 
indicated we should wait for the results from scientists, however 97 
percent of scientists have affirmed that climate change is occurring. 
We are already seeing the impacts of climate disruption around the 
world. 2016 was the hottest year on record and some countries have 
already relocated citizens due to climate change, creating the world's 
first climate refugees. Additionally, national security experts, 
including military leadership at the Pentagon, have warned that climate 
change poses a range of threats from the impact on U.S. installations 
around the world, to global health trends, to international dynamics in 
the Arctic, and as a ``threat multiplier,'' leading to increased 
instability around the world as societies clash over resources that 
become scarcer and scarcer.

   Do you believe climate change poses a national security threat?
   If so, do you believe the United States should be a leader in 
        helping find global solutions?
   What role should the United Nations play in helping combat climate 
        disruption?
   Will you commit to discussing climate disruption with your foreign 
        counterparts and to look for areas of international 
        cooperation?

    Answer. Thank you for this question, I respect your leadership on 
this issue. As Ambassador Haley has remarked and as I also stated in 
response to your question during my confirmation hearing on 11 July 
2017, climate change should always be on the table as one of the 
factors we consider. If confirmed, I look forward to working with you 
regarding the appropriate roles that the U.N. should play regarding 
climate change.

    Question 2. In various articles you make derogatory remarks about 
members of Congress, including members of the Senate Foreign Relations 
Committee. Do you stand by these statements? Do you feel attacks on 
Senators are appropriate for diplomats? How will your statements 
attacking both individual Senators and Senators of a group impact your 
ability to work constructively with members on both sides of the aisle?

    Answer. Thank you for this question. I hold Members of Congress in 
the highest regard, and I deeply appreciate Members' of Congress 
service to our Nation. I wrote that in my capacity as a private 
citizen.
    I am grateful to Ambassador Haley for having the confidence in me 
to fulfill this role. If confirmed, I pledge to serve in a capacity 
that is worthy of my post and of my country. I also commit to work with 
you and all members of this committee, regardless of party, to the 
utmost of my ability.

    Question 3. You have also referred to government and Senators as 
``massive parasites,'' ``cunning bacteria,'' and a ``problem.'' Do you 
believe members of the House and Senate are bacteria or parasites?

    Answer. Thank you for allowing me the opportunity to clarify. I 
hold Members of Congress, regardless of party, in the highest regard. 
If confirmed, I commit to working with you and this committee to the 
utmost of my ability.

    Question 4. Do you recognize this rhetoric could be unhelpful for a 
diplomat at the United Nations?

    Answer. Thank you for the opportunity to clarify. Writing as a 
private citizen is very different from serving the country. I 
understand that my words and actions while representing the United 
States are watched very closely. That is a responsibility that I have 
proudly and successfully borne in the past while serving at the U.N. 
and abroad. I take it very seriously. It is an honor to be considered 
for this post, and I am grateful to Ambassador Haley for having the 
confidence in me to serve in this role. If confirmed, I pledge to serve 
in a capacity that is worthy of my post and of my country.

    Question 5. I have appreciated Ambassador Haley's personal 
collegiality and mutual respect. She has made a concerted effort to 
consult regularly with Congress, calling the Senate Foreign Relations 
Committee her ``board of directors.'' Do you share her sentiment and 
approach?

    Answer. Thank you for this question. I agree completely with 
Ambassador Haley's approach and appreciate the professional, respectful 
relationship that has developed. If confirmed, I pledge to pursue the 
same approach and look forward to working with you and the entire 
Senate Foreign Relations Committee.

    Question 6. There are reports that the Trump administration has 
directed agencies to ignore oversight requests from Democrats and only 
respond to requests for information from the Chair of committees of 
jurisdiction. Will you commit to consulting regularly with this 
committee? Will you respond promptly and completely to questions and 
requests for information from both parties?

    Answer. If confirmed, I commit to furthering the same respectful 
approach that Ambassador Haley and Secretary Tillerson have pursued 
with you and the Senate Foreign Relations Committee, regardless of 
party. One important lesson I learned while serving in the Army is that 
there are no political parties in the military--only Americans. I 
believe that should also be the case with diplomacy.

    Question 7. The administration is working to better match 
peacekeeping missions and mandates while simultaneously cutting costs 
for the U.N.'s peacekeeping activities. Cost efficiency is important, 
but so is ensuring that U.N. peacekeeping missions have sufficient 
troops and resources to carry out their mandates. How is the 
administration balancing cost savings with mission effectiveness? Are 
there any existing missions that you would recommend strengthening?

    Answer. To ensure each mission is appropriate to the situation in 
each country and advancing the Security Council's objectives, the 
United States has invited U.N. Security Council members to join in 
evaluating every U.N. peacekeeping mission as its mandate comes up for 
renewal through the lens of the five peacekeeping principles Ambassador 
Haley articulated in April: 1) missions must support political 
solutions, 2) host country strategic consent is critical, 3) mandates 
must be realistic and achievable, 4) clear sequencing and exit 
strategies are required at all stages, and 5) missions and mandates 
must be adjusted where Security Council objectives are not achieved.
    Throughout this process, the United States seeks to strengthen all 
missions by ensuring they are appropriately resourced and designed to 
respond to the unique circumstances of the environments in which they 
are operating, and to implement Security Council mandates efficiently 
and effectively.

    Question 8. The Obama administration successfully launched an 
effort to generate new troop contributors and new force capabilities 
for U.N. peacekeeping operations, highlighted during a high-level event 
at the 70th Session of the U.N. General Assembly in 2015. Do you plan 
to continue the Obama administration's efforts? How important do you 
believe it is to improve the quality and capability of U.N. 
peacekeeping forces?

    Answer. It is crucial to continue to improve the quality and 
capability of U.N. peacekeeping forces. U.N. peacekeeping helps share 
the cost of collective security in some of the most dangerous and 
difficult environment around the world.
    The 2015 U.S.-led peacekeeping summit generated the pledges needed 
to ensure strategic force generation in U.N. peacekeeping. It was 
followed by the 2016 UK-hosted Defense Ministerial and a French 
Ministerial on Peacekeeping in French-Speaking Environments. These 
events helped maintain momentum for continued reform, identifying ways 
to improve the planning and performance of U.N. peacekeeping 
operations, including by generating new pledges and reviewing previous 
pledges to fill personnel and capability gaps, increasing women's 
participation, tackling sexual exploitation and abuse, improving rapid 
deployment and training, and developing performance-based management 
systems.
    In November, Secretary Mattis will co-host with Canada the 2017 
U.N. Peacekeeping Defense Ministerial in Vancouver. This ministerial is 
another important step in U.S. efforts to make U.N. peacekeeping more 
effective, particularly at the operational level. The ministerial is an 
important opportunity to generate additional pledges to fill shortfalls 
in ongoing U.N. peacekeeping missions, as well as provide the 
Secretary-General with an opportunity to report on progress made in 
implementing peacekeeping reforms and chart a course for reforms to be 
implemented throughout 2018. If confirmed, I would strongly support 
this effort and continue to exercise U.S. leadership to ensure much-
needed reform of U.N. peacekeeping.

    Question 9. The Obama administration, in conjunction with South 
Korea and other partners, successfully added the human rights situation 
in North Korea to the U.N. Security Council's agenda, meeting on the 
topic most recently in December 2016. Ambassador Haley has also made 
the nexus between human rights and peace and security a focus of her 
work at the Council. Do you support this approach? What would you do to 
make human rights a focus at the Council?

    Answer. As Ambassador Haley emphasized in the U.N. Security Council 
in April, the protection of human rights is deeply intertwined with 
international peace and security and should be addressed by the Council 
accordingly. Human rights violations and abuses are not merely the 
byproduct of conflict, but are often the trigger. Violations of human 
rights by states exacerbate violence and instability that can spill 
across borders. The Security Council should continue to address human 
rights, as it has through reporting on peacekeeping and special 
political missions, sanctions, and dedicated sessions on the worst 
human rights abusers, as well as consider the connection between human 
rights and security more broadly.
    If confirmed, I will redouble efforts to ensure that U.N. 
peacekeeping and political missions are working to fulfill their 
mandates related to protection of civilians, and monitoring and 
reporting on human rights violations and abuses. I will also work 
within the U.S. Mission to the United Nations to amplify the Council's 
voice on human rights abuses and violations in countries on the 
Council's agenda such as North Korea, Venezuela, and the Democratic 
Republic of Congo, and will use the platform of the Security Council to 
reinforce the work of the U.N. Human Rights Council.

    Question 10. The Obama administration and members of Congress from 
both parties have continuously prioritized U.S. national security 
interests including by fighting terrorists like Al-Qaeda and ISIS. In a 
July 18, 2016, article you state that the ``left'' believes ``wolves 
like ISIS are just misunderstood victims.'' Do you think Democratic 
members of the House and Senate are sympathetic to ISIS?

    Answer. I hold Members of Congress, regardless of political party, 
in the highest regard. I do not believe that any Member of Congress is 
supportive of ISIS. If confirmed, I pledge to work with all members of 
the Senate Foreign Relations Committee in a timely and respectful 
manner.

    Question 11. We are seven months into the Trump administration and 
we have yet to see any new comprehensive strategy for Syria, 
Afghanistan or the broader fight against ISIS. Do you think broad 
strategy on these issues includes the United States leading partner 
nations in these efforts?

    Answer. On January 28 the President directed Secretary of Defense 
Mattis to work with interagency partners to conduct a 30-day review of 
the U.S. Government's strategy to defeat ISIS, and identify ways to 
accelerate it. The Department of State was DOD's primary partner in 
drafting a strategic framework and, as the White House has announced, 
it was delivered to the White House on February 27 for consideration 
and broader discussion.


    Question 12. As you may be aware from 2009-2017 the unemployment 
rate dropped from 10 percent to 4.6 percent, there were 75 continuous 
months of job growth with 11.3 million new jobs created, and the 
federal budget deficit as share of gross domestic product went down 
from 9.8 percent to 3.2 percent. Yet, in a November 2, 2016, article 
you state that Obama's ``presidency has been a shambles by every 
conceivable metric both at home and abroad.'' Given these metrics, do 
you still support that statement, or do you think these were an 
improvement?

    Answer. Thank you for this question. President Obama inherited a 
very difficult economic situation upon taking office in 2009. My 
function while writing as a private citizen was to debate issues such 
as this. If confirmed, my role at the United Nations will be markedly 
different, and I am very clear about that. If confirmed, I pledge to 
serve in a capacity that is worthy of my post and of my country.

    Question 13. Under the Affordable Care Act, 20 million people 
nationwide gained health insurance, Medicaid was expanded, and the 
exchanges were established. The result was access to lifesaving 
affordable care for low income individuals and families, those 
suffering from chronic illness, and people with preexisting conditions. 
That being said, you have referred to the Affordable Care Act as 
``devastating to the middle class.'' Do you still believe these results 
to be ``devastating''?

    Answer. Thank you for this question. My function while writing as a 
private citizen was to debate issues such as the Affordable Care Act. 
If confirmed, my role at the United Nations will be markedly different, 
and I am very clear about that. If confirmed, I pledge to serve in a 
capacity that is worthy of my post and of my country.

    Question 14. In a July 18 article you make an endorsement of Mr. 
Trump for President by saying we need ``A president who will focus on 
bringing Americans together instead of fomenting division for political 
gain.'' At the time of writing, Mr. Trump and his campaign used 
divisive rhetoric against women, Muslims, Hispanics and other minority 
groups. Do you think that type of rhetoric is helpful for bringing 
people together?

    Answer. I believe that we should strive to bring our nation 
together. Our diversity can be an asset. Throughout my career I've 
served alongside service members and Foreign Service Officers from 
diverse ethnicities, genders, and faiths. I've experienced the value of 
diversity firsthand. I am honored that Ambassador Haley has the 
confidence in me to serve in this role at the United Nations. If 
confirmed, I pledge to serve in a capacity that is worthy of my post 
and of my country.



                               __________





                              NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 18, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson [presiding], Risch, Gardner, 
Young, Isakson, Murphy, Menendez, Shaheen, Udall, Kaine, and 
Merkley.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order. I want to 
welcome everybody. We gather today to consider the nominations 
of two ambassadorships and two senior positions at the State 
Department.
    Mrs. Callista L. Gingrich is the President's nominee to be 
the U.S. Ambassador to the Holy See.
    Mr. Nathan Alexander Sales is the President's nominee to be 
coordinator for counterterrorism with the rank and status of 
Ambassador-at-Large.
    Mr. George Edward Glass is the nominee to be the U.S. 
Ambassador to Portugal.
    Mr. Carl C. Risch is the President's nominee to be the 
Assistant Secretary of State for Consular Affairs.
    I want to welcome the nominees and their families to this 
committee and congratulate them on their selection by the 
President. Thank you for your willingness to serve.
    I also want to note that we have Congressman Rooney here 
supporting Mrs. Gingrich. Congressman Rooney was the 
Congressman from Florida and also the Ambassador to the Holy 
See during President Bush's term.
    This committee is also honored to welcome our distinguished 
colleagues who will introduce two of our witnesses, the senior 
Senator from Oregon, Senator Ron Wyden, and an esteemed member 
of this committee, Senator Portman from Ohio. Thank you both 
for being here today.
    With that, I will recognize Senator Wyden to introduce Mr. 
Glass.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, thank you for your courtesy. 
As Senator Portman knows, we are right in the middle of 
debating tax reform, I know a topic of great interest to many 
Senators here, and I am trying to help out Chairman Hatch, so I 
will make this a filibuster-free opportunity, Mr. Chairman.
    And it is a great privilege to be able to introduce a 
longtime friend, George Edward Glass. Mr. Glass has been 
nominated to serve as our next Ambassador to Portugal.
    And as we begin this discussion, I am glad that the 
President has begun submitting more nominees to the Senate for 
consideration, because we all understand that having a Senate-
confirmed Ambassador makes a world of difference when 
challenges emerge, as this committee knows better than just 
about anybody.
    Knowing Mr. Glass as I do, I am confident that, as all of 
you get to know him better, you are going to report him 
favorably to the Senate floor.
    As he is going to tell you, George Glass is an Oregonian 
through and through. He was born in Eugene. He attended college 
there, graduating from the University of Oregon. Like me, he is 
a Duck, and he has continued to be involved with the 
university, with the community, as he has been recognized as a 
pillar of Portland's financial, real estate, and tech 
communities.
    He has been involved in a number of projects to help our 
community. I am particularly pleased that he has had a long 
interest in the Oregon Health and Science University. They are 
a lifeline in terms of reaching out to our community and to 
those who have really found it hard to access health care. He 
has been a trustee for the Oregon Health and Science 
University, a former president of the University of Oregon 
Alumni Association, and also a member of the Catholic Business 
Leaders Association.
    I just feel very strongly that as you look to Portugal and 
to that part of the world, we are going to need people who have 
demonstrated a track record of stepping up, being involved in 
their community, someone with expertise in a variety of areas, 
not just his chosen profession of finance, but health care, 
with his background at Oregon Health and Science.
    And I believe that as you get to know him and confirm him, 
after you have had a chance to hear from him, you will come to 
the conclusion I have, which is George Glass has values shared 
by Americans and by those in the country he seeks to serve, 
Portugal.
    And I very much appreciate my colleagues going out of order 
to extend this courtesy to me. And my guess is Chairman Hatch 
is probably grateful to you all as well, as we try to keep 
matters proceeding in the Finance Committee.
    So thank you very much, Mr. Chairman. I very much look 
forward to members of the committee getting to know George 
Glass, as I have. I think you will come to the same judgment I 
have, that he will serve and reflect great credit on the United 
States in this position.
    Thank you very much.
    Senator Johnson. Thanks, Senator Wyden, for the great 
introduction and your strong support for the nominee.
    As long as you are taking a look at my corporate tax 
reform, I really do encourage you to get out of here and get 
back to the task at hand.
    Senator Portman?

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Chairman Johnson.
    I will be joining my colleague in a minute back on the tax 
reform front, but I wanted to be here to welcome this 
distinguished group of nominees.
    Thank you for your willingness to serve. And to Mr. Risch 
and Mr. Glass, you have just gotten a nice accolade from 
someone who will help you not just in this committee but in the 
vote on the floor.
    To Callista Gingrich, again, thank you for serving. You 
could have no better person behind you than former Ambassador 
to the Holy See, Francis Rooney. That means a lot to all of us, 
and we are looking forward to supporting you.
    Finally, Nathan Sales, Mr. Chairman, he is from Ohio.
    Senator Johnson. I wouldn't have guessed.
    Senator Portman. Yes, you wouldn't have guessed. Did I tell 
you that he was from Ohio?
    But we are very proud of him. He is before this committee 
to be the next coordinator for counterterrorism at the State 
Department, so, obviously, an incredibly vital national 
security position that needs to be filled as quickly as 
possible.
    And by the way, in these national security positions, we 
need to have honorable, capable individuals who understand the 
importance of that mission, protecting the homeland but also 
working with our allies to combat the threat of global 
terrorism. So we are pleased to have you here.
    Did I mention he is from Ohio?
    Senator Johnson. You did. It never hurts to mention it 
again.
    Senator Portman. Okay. Canton, Ohio, to be specific. He 
also intended Ohio's Miami University. He then, for some 
reason, headed south and went to Duke Law School. Following law 
school, he did clerk for the Honorable David B. Sentelle of the 
United States Court of Appeals for the D.C. Circuit, a very 
prestigious position.
    And he is no stranger to public service. He served in the 
Office of Legal Policy at the Department of Justice, and then 
as Deputy Assistant Secretary for Policy at the Department of 
Homeland Security during the George W. Bush administration, 
where I also served. There, he focused on intelligence, 
information-sharing, terrorist travel.
    At DHS, he drafted critical legislation to improve the 
security of our visa waiver program, something that the 
chairman and I have had deep interest in, in his other role as 
chairman of the Government Affairs and Homeland Security 
Committee.
    In the past 2 years, Nathan returned to the private sector 
and academia. He has been counsel at Kirkland & Ellis here in 
Washington, but also an associate professor of law at Syracuse 
University College of Law. By the way, he teaches and writes in 
the fields of national security law and counterterrorism law, 
among other areas. So he is perfectly qualified for this 
position.
    So, Mr. Chairman, I look forward to supporting Nathan Sales 
as our next coordinator for counterterrorism, not only because 
of his ties to the Buckeye State, which are important. But much 
more importantly, because of his relevant experience, because 
of his strong record, and because of his lifelong commitment to 
our Constitution, our laws, and the security of our country.
    I hope my colleagues on both sides of the aisle will join 
me in this effort to quickly fill this critically important 
national security role with an experienced and capable public 
servant.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Portman, for that great 
introduction. Again, by all means, go back to the Finance 
Committee and start working on that Ron Johnson corporate tax 
proposal.
    Again, thank you for that.
    Now, as great as it is to have nominees from Oregon and 
Ohio, I certainly appreciate the fact that I have the privilege 
of introducing our nominee from the State of Wisconsin. 
Although I am chairing this hearing, in my capacity as the 
senior Senator from Wisconsin, I also have the honor of 
introducing my fellow Wisconsinite, Mrs. Callista Gingrich, our 
nominee to be the U.S. Ambassador to the Holy See.
    Callista was born and raised in Whitehall, Wisconsin, a 
particularly beautiful area of the State. Although, as I have 
driven through it, it is an area where you drop cell coverage 
frequently. It is hard to do radio interviews as you are 
driving through that region.
    She graduated from Whitehall Memorial High School as the 
valedictorian, and served as an organist at St. John's Catholic 
Church. Callista attended Luther College in Decorah, Iowa, 
where she was a Regent Scholar and honors graduate.
    Almost 3 decades ago, Callista came to Washington to intern 
for her hometown Congressman, Steve Gunderson. She became a 
member of Congressman Gunderson's personal staff and later 
served as the chief clerk of the House Committee on 
Agriculture.
    After 18 years of service, Callista left Capitol Hill to 
found Gingrich Productions, a multimedia production consulting 
company. She has been the president and CEO of Gingrich 
Productions for the last decade, producing documentary films, 
writing books, and advising clients. Callista also works to 
support many charitable causes through her role as the 
president of the Gingrich Foundation.
    Callista is a lifelong Catholic and has been active in her 
faith community for many years. She has sung for 21 years in 
the choir of the Basilica of the National Shrine of the 
Immaculate Conception here in Washington.
    As part of her work with Gingrich Productions, Callista 
collaborated with church leaders to produce and host `` Nine 
Days That Changed the World,'' a documentary about Pope John 
Paul II's historic 1979 pilgrimage to Poland. She also produced 
a documentary about Pope John Paul II's canonization.
    Callista's interests in Pope John Paul II is fitting, given 
her nomination. President Reagan's friendship with Pope John 
Paul II led to reestablished formal relations with the Holy See 
in 1984, and together, they helped orchestrate the fall of the 
Soviet Union.
    Since then, Popes and American Presidents have collaborated 
on a wide range of issues, including promoting human rights and 
respect for human dignity, interreligious understanding, and 
economic progress in the developing world.
    Callista's understanding of the Catholic Church, her 
considerable experience in government and business, and her 
talents as a communicator make her an ideal choice to represent 
U.S. interests at the Holy See. I support her nomination and 
urge my colleagues to support her as well.
    So thank you, Mrs. Gingrich, for your willingness to serve.
    I am also delighted to introduce Mr. Carl C. Risch of 
Pennsylvania, the President's nominee to be Assistant Secretary 
of State for Consular Affairs. Mr. Risch is a highly regarded 
Pennsylvania attorney and current acting Chief of Staff in the 
U.S. Citizenship and Immigration Services. He was previously 
the field office director of the U.S. Citizenship and 
Immigration Services at the American Embassy in Seoul, South 
Korea.
    A senior immigration official abroad and in Washington, 
D.C., for over a decade, and a former consular Foreign Service 
Officer with the Department of State, Mr. Risch is an expert on 
responsibilities and challenges of managing Consular Affairs 
worldwide.
    With that, I would like to recognize the distinguished 
ranking member for his comments, Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman. We have, actually, 
a good full house of members here, so I am going to defer my 
opening remarks.
    I thank all of you for your service. Mr. Sales and I had a 
chance to sit down and have a very productive conversation 
yesterday. I am very glad for your testimony and for us to 
engage in a dialogue.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    The order of our nominees' opening remarks will be Mrs. 
Gingrich, Mr. Sales, Mr. Glass, and then Mr. Risch.
    Mrs. Gingrich?

STATEMENT OF CALLISTA L. GINGRICH OF VIRGINIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                    AMERICA TO THE HOLY SEE

    Ms. Gingrich. Chairman Johnson, Ranking Member Murphy, and 
distinguished members of the Senate Committee on Foreign 
Relations, I am honored to appear before you today as President 
Trump's nominee to serve as the United States Ambassador to the 
Holy See.
    I am thankful to President Trump for the confidence and 
trust he has placed in me to be his representative at this 
important Embassy.
    In addition, I want to express my gratitude to Secretary of 
State Rex Tillerson for supporting my nomination.
    It is a special honor to be introduced by Chairman Johnson 
from my home State of Wisconsin. Thank you.
    I am also grateful to appear before this committee today 
with the full support of my husband, Newt. As veterans of 
Capitol Hill, we both have great respect for your role in 
assessing and confirming those who represent the American 
people abroad. If confirmed, I look forward to working closely 
with the members and staff of this committee.
    Like the United States, the Holy See is active on a global 
scale. It is engaged on every continent to advance religious 
freedom and human rights, to fight terrorism and violence, to 
combat human trafficking, to prevent the spread of diseases 
like Ebola and HIV/AIDS, and to seek peaceful solutions to 
crises around the world.
    Those who serve in the State Department are known the world 
over for their patriotism and dedication. The professional 
staff at the U.S. Embassy to the Holy See exemplify these 
traits. They work tirelessly to leverage the Vatican's global 
reach and to advance our strong bilateral relationship.
    Charge d'Affaires Louis Bono and the Embassy team did an 
extraordinary job preparing for and hosting the President on 
his visit to the Vatican in May. During that visit, President 
Trump and Pope Francis highlighted shared concerns, including 
the protection of Christian communities in the Middle East.
    Pope Francis has powerfully called on religious leaders and 
people of all faiths to unequivocally reject terrorism and 
violence in the name of religion. The Vatican and its 
organizations play an active role in troubled areas around the 
globe, from Venezuela to South Sudan to the Democratic Republic 
of the Congo, countries where the Holy See's support for 
peaceful solutions and democratic institutions directly 
benefits the interests of the United States.
    The Catholic Church is a unique global network, overseeing 
the world's second largest international aid organization, 
operating 25 percent of the world's health care facilities, and 
ministering to millions in every corner of the world.
    As global leaders, the United States and the Vatican must 
continue to work closely to advance our shared values of human 
dignity and freedom. This can only happen if we maintain and 
build upon a strong foundation of trust and mutual 
communication. If confirmed, I will continue this vital 
dialogue, which has been so important for the people of the 
United States and the world.
    I understand how the United States and the Holy See can act 
as a worldwide force for good when we work together. Several 
years ago, I had the honor of producing a documentary film 
entitled, ``Nine Days That Changed the World.'' It chronicles 
Pope John Paul II's historic pilgrimage to Poland in 1979, an 
event that inspired the Polish people to renew their hearts, 
reclaim their courage, and free themselves from the shackles of 
communism.
    Producing this film required substantial work with key 
church leaders and other experts in the United States, Poland, 
and the Vatican. This film has been well-received by the 
Catholic Church and is used in religious education programs 
throughout the United States. Most importantly, this film is a 
powerful example of the invaluable role the Vatican plays in 
international affairs.
    Recently, I produced another documentary film entitled, 
``Divine Mercy: The Canonization of John Paul II.'' These 
projects, along with my decades-long membership in the choir of 
the Basilica of the National Shrine of the Immaculate 
Conception, have given me the opportunity to build 
relationships with many church leaders, clergy, and religious 
scholars. These experiences have instilled in me the highest 
respect for the Holy See, a deep appreciation for the 
responsibility of this post, and confidence that the United 
States-Vatican bilateral relationship is a force for good and 
one that cannot be ignored.
    As a lifelong Catholic, business owner, documentary film 
maker, author, and former public servant, I am profoundly 
humbled at the prospect of serving my country as the United 
States Ambassador to the Holy See. If confirmed, I will work 
diligently to develop even stronger ties between the United 
States and the Holy See.
    Mr. Chairman, Mr. Ranking Member, and members of the 
committee, I appreciate the opportunity to be before you today 
and would be pleased to answer any questions you may have. 
Thank you.
    [Ms. Gingrich's prepared statement follows:]


               Prepared Statement of Callista L. Gingrich

    Chairman Johnson, Ranking Member Murphy, and distinguished members 
of the Senate Committee on Foreign Relations, I am honored to appear 
before you today as President Trump's nominee to serve as the United 
States Ambassador to the Holy See. I am thankful to President Trump for 
the confidence and trust he has placed in me to be his representative 
at this important Embassy. In addition, I want to express my gratitude 
to Secretary of State Rex Tillerson for supporting my nomination.
    It is a special honor to be introduced by Chairman Johnson from my 
home state of Wisconsin. I am also grateful to appear before this 
committee today with the full support of my husband, Newt. As veterans 
of Capitol Hill, we both have great respect for your role in assessing 
and confirming those who represent the American people abroad. If 
confirmed, I look forward to working closely with the members and staff 
of this committee.
    Like the United States, the Holy See is active on a global scale. 
It is engaged on every continent to advance religious freedom and human 
rights, to fight terrorism and violence, to combat human trafficking, 
to prevent the spread of diseases like Ebola and HIV/AIDS, and to seek 
peaceful solutions to crises around the world.
    Those who serve in the State Department are known the world over 
for their patriotism and dedication. The professional staff at the U.S. 
Embassy to the Holy See exemplifies these traits. They work tirelessly 
to leverage the Vatican's global reach and to advance our strong 
bilateral relationship. Charge d'Affaires Louis Bono and the Embassy 
team did an extraordinary job preparing for and hosting the President 
on his visit to the Vatican in May.
    During that visit, President Trump and Pope Francis highlighted 
shared concerns, including the protection of Christian communities in 
the Middle East. Pope Francis has powerfully called on religious 
leaders and people of all faiths to unequivocally reject terrorism and 
violence in the name of religion.
    The Vatican and its organizations play an active role in troubled 
areas around the globe, from Venezuela to South Sudan to the Democratic 
Republic of the Congo--countries where the Holy See's support for 
peaceful solutions and democratic institutions directly benefits the 
interests of the United States.
    The Catholic Church is a unique global network, overseeing the 
world's second-largest international aid organization, operating 25 
percent of the world's healthcare facilities, and ministering to 
millions in every corner of the world.
    As global leaders, the United States and the Vatican must continue 
to work closely to advance our shared values of human dignity and 
freedom. This can only happen if we maintain and build upon a strong 
foundation of trust and mutual communication. If confirmed, I will 
continue this vital dialogue--which has been so important for the 
people of the United States and the world.
    I understand how the United States and the Holy See can act as a 
world-wide force for good, when we work together. Several years ago, I 
had the honor of producing a documentary film entitled, Nine Days that 
Changed the World. It chronicles Pope John Paul II's historic 
pilgrimage to Poland in 1979--an event that inspired the Polish people 
to renew their hearts, reclaim their courage, and free themselves from 
the shackles of Communism.
    Producing this film required substantial work with key church 
leaders and other experts in the United States, Poland and the Vatican. 
This film has been well received by the Catholic Church and is used in 
religious education programs throughout the United States. Most 
importantly, the film is a powerful example of the invaluable role the 
Vatican plays in international affairs.
    Recently I produced another documentary film entitled, Divine 
Mercy: The Canonization of John Paul II. These projects, along with my 
decades-long membership in the Choir of the Basilica of the National 
Shrine of the Immaculate Conception, have given me the opportunity to 
build relationships with many Church leaders, clergy and religious 
scholars.
    These experiences have instilled in me the highest respect for the 
Holy See, a deep appreciation for the responsibility of this post, and 
confidence that the United States-Vatican bilateral relationship is a 
force for good, and one that cannot be ignored.
    As a lifelong Catholic, business owner, documentary film maker, 
author, and former public servant, I am profoundly humbled at the 
prospect of serving my country as the United States Ambassador to the 
Holy See.
    If confirmed, I will work diligently to develop even stronger ties 
between the United States and the Holy See.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
appreciate the opportunity to appear before you today and would be 
pleased to answer any questions you may have. Thank you.


    Senator Johnson. Thank you, Mrs. Gingrich.
    Our next nominee will be Mr. Sales.
    Mr. Sales?

STATEMENT OF NATHAN ALEXANDER SALES OF OHIO, TO BE COORDINATOR 
 FOR COUNTERTERRORISM, WITH THE RANK AND STATUS OF AMBASSADOR-
                            AT-LARGE

    Mr. Sales. Thank you, Chairman Johnson. Thank you, Ranking 
Member Murphy. And thank you, members of the committee for 
holding this hearing today. It is an honor to be with you this 
morning.
    Let me start by introducing my family, my wife, Margaret, 
along with our daughters, Anna and Cate. They are the ones with 
the coloring books and the stickers. My parents, Alex and 
Marsha, are here. They came out from Ohio. And I would also 
like to acknowledge my father-in-law and mother-in-law, Charlie 
and Anna Tretter, who are home in Boston and couldn't be with 
us this morning.
    A special word of thanks to Senator Portman, a fellow 
Buckeye, for his kind words of introduction. You can take the 
boy out of Ohio, but you cannot take Ohio out of the boy.
    I also want to express my gratitude to President Trump and 
Secretary Tillerson for putting me forward for this important 
position. If I am confirmed, I will do everything in my power 
to earn and pay back the trust and confidence that they have 
shown in me, and that the Senate will have shown in me.
    I came to the field of counterterrorism almost by 
happenstance. In 2001, I was a young lawyer at the Justice 
Department. I had been hired to work on administrative law 
issues. It was the middle of August 2001.
    Three weeks later was 9/11. I still vividly recall the 
chilling rumors that flew that morning as we evacuated Main 
Justice. I am sure many of the people in this room recall those 
rumors as well. Car bomb at the State Department. Fires on the 
National Mall. Another hijacked plane heading for the capital.
    Some of those rumors turned out to be false alarms, but 
that was little consolation. The reality was bad enough.
    Suddenly, the Chevron doctrine no longer seemed so 
important. My job and the job of everybody at the Justice 
Department, everybody in the administration, everybody in 
Congress, now shifted to one fundamental and overriding 
priority: preventing another assault on our homeland. 9/11 was 
not just an attack on our citizens and our landmarks. It was an 
attack on our very way of life, our democracy, our commitment 
to the rule of law, our veneration of individual liberty.
    And so our top priority at the Justice Department was to 
equip our Nation's cops, and spies, and soldiers with the tools 
they needed to confront this new menace and, just as 
importantly, to do so in a way that maintained faith with our 
fundamental values as Americans, our basic national values. We 
couldn't allow our fundamental values to become a casualty of 
war.
    I took that commitment with me to Homeland Security a few 
years later. At DHS, I learned the importance of working with 
our allies around the world to confront the specter of 
terrorism. And I saw firsthand that our alliances are strong, 
not just because of our shared economic and military might, but 
because of our shared values.
    Let me also say a few words about the dedicated career 
professionals that I hope to join at the State Department. 
Before she became a lawyer, my wife earned a master's degree at 
Georgetown's School of Foreign Service, and many of her 
classmates went on to serve at State Department. There is a 
reason they call the West Point of the Foreign Service.
    Getting to know them, I have developed a deep appreciation 
for their extensive knowledge, their commitment to the mission, 
and the sacrifices they have made for our country. It will be a 
privilege to serve alongside them, if I am confirmed.
    I started with my family and I would like to end there, 
too. I come from a long line of patriots. My father, Alex, was 
an ROTC cadet and a Navy officer in the tumultuous Vietnam era. 
During World War II, my grandfather, Clarence, served in the 
Army Corps of Engineers. He was stationed in England, which is 
where he met my grandmother, Agnes, an Army nurse. She actually 
outranked him, which is a fact that she never let him, or 
anybody else, forget. My other grandfather, Chic, was an 
infantry captain. He saw action in Normandy, helped liberate 
France, and earned a Bronze Star for valor and a Purple Heart.
    It was a great honor for me to carry on their tradition of 
service at Justice and Homeland Security. And it will be a 
great honor, if I am confirmed, to continue their legacy at 
State.
    Thank you again, Mr. Chairman, Mr. Ranking Member, members 
of the committee. And I look forward to your questions.
    [Mr. Sales's prepared statement follows:]


              Prepared Statement of Nathan Alexander Sales

    Chairman Johnson, Ranking Member Murphy, and distinguished members 
of the committee, thank you for holding this hearing. It's an honor to 
appear before you as the President's nominee to be Coordinator for 
Counterterrorism.
    Let me introduce some family members who are here this morning: My 
wife, Margaret, along with our daughters, Anna and Cate. My parents, 
Alex and Marsha, came out from Ohio. And I'd like to acknowledge my 
father- and mother-in-law, who are home in Boston and couldn't join us 
today: Charlie and Anna Tretter.
    I'd like to thank Senator Portman, a fellow Buckeye, for his kind 
words of introduction.
    I also want to express my gratitude to President Trump and 
Secretary Tillerson for putting me forward for this important position. 
If I'm confirmed, I'll do everything in my power to justify the trust 
and confidence that they--and the Senate--have placed in me.
    I came to the field of counterterrorism and national security 
almost by happenstance. In 2001, I was a young lawyer, fresh off a 
judicial clerkship, when the Justice Department hired me to work on 
administrative law issues. I started in mid-August.
    Three weeks later was 9/11. I still vividly recall the chilling 
rumors that flew as we evacuated Main Justice that sunny morning. Car 
bomb at the State Department. Fires on the national mall. Another 
hijacked plane heading for the capital. Some of the reports turned out 
to be false alarms, but that was little consolation. The reality was 
bad enough.
    Suddenly, the Chevron doctrine no longer seemed so important. My 
job--indeed, the focus of the Justice Department and the administration 
as a whole--now shifted to one fundamental and overriding priority: 
Preventing another assault on our homeland.
    September the 11th wasn't just an attack on our landmarks and our 
citizens. It was an attack on our very way of life--our democracy, our 
devotion to the rule of law, our commitment to individual liberty. And 
so our top priority as policymakers was to equip our nation's cops, 
spies, and soldiers with the tools they needed to confront this new 
menace, and to do so in a way that affirmed our basic national values. 
We couldn't allow our fundamental rights as Americans to become a 
casualty of war.
    I carried that commitment with me when I joined the fledgling 
Department of Homeland Security a few years later. At DHS, I learned 
the importance of working with our allies around the world to confront 
terrorism. And I saw firsthand that our alliances are strong, not just 
because of our shared economic and military might, but because of our 
shared liberal values.
    I also learned the ins and outs of the interagency process, working 
with key counterterrorism players throughout the Government. Terrorism 
is a complex threat that requires all tools of national power--the 
armed forces and the intelligence community, to be sure, and also the 
diplomatic corps, economic officials, and law enforcement.
    Let me say a few words about the dedicated career professionals I 
hope to join at the State Department. Before she became a lawyer, my 
wife earned a master's degree at Georgetown's School of Foreign 
Service, and many of her friends and classmates have gone on to work at 
State. Getting to know them, I've developed a deep appreciation for 
their extensive knowledge, their commitment to the mission, and the 
sacrifices they've made to advance our country's interests and values. 
It will be a privilege to serve alongside them, if I'm confirmed.
    I started with my family and I'd like to end there too.
    I come from a long line of patriots. My father, Alex, was an ROTC 
cadet and a Navy officer in the tumultuous Vietnam era. During World 
War II, my grandfather, Clarence, served in the Army Corps of 
Engineers. He was stationed in England, where he met my grandmother, 
Agnes, an Army nurse. She actually outranked him, a fact that she never 
let him--or anyone else--forget. My other grandfather, Chic, was an 
infantry captain. He saw action in Normandy, helped liberate France, 
and earned a Bronze Star for valor and a Purple Heart.
    It was a great honor for me to carry on their tradition of service 
at Justice and Homeland Security. And it will be a great honor, if I'm 
confirmed, to continue their legacy at State.
    Thank you again and I look forward to your questions.


    Senator Johnson. Thank you, Mr. Sales. I appreciate you 
introducing your family. I was remiss in not encouraging 
everybody to do so.
    So, Mr. Glass, if you have members here, please introduce, 
and then we look forward to your testimony.

 STATEMENT OF GEORGE EDWARD GLASS OF OREGON, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE PORTUGUESE REPUBLIC

    Mr. Glass. I will, Senator. Thank you. Mr. Chairman, 
Ranking Member Cardin, and distinguished members of the 
committee, it is with great humility and honor I sit before you 
today.
    I am deeply grateful to President Trump and Secretary 
Tillerson for their trust and support in nominating me to be 
the Ambassador to the Republic of Portugal. If confirmed, I am 
committed to focusing all my energies to further the interests 
of the United States of America.
    I could take a moment, I would like to introduce my family, 
for without their support and love, I would not be here today. 
I would like to acknowledge my wife, Mary, who is sitting here 
with me who came out from Oregon. I would also like to 
acknowledge my three sons and their wives, who are supporting 
me from afar. My oldest, Gordon, and his wife, Giau, currently 
live in Japan. He teaches English over there. My middle son, 
George, and his wife, Emily, are not here for the best of all 
reasons. They are due with their first child here in August, 
and that is actually our first grandchild. And our youngest, 
Andrew, is in the throes of his very first job just after 
graduating from college.
    I would also like to acknowledge my mother and step-father, 
Mary and Jay O'Leary, and Mary's parents, Joe and Laurie 
Ferguson.
    Lastly, I want to thank my father, who is here in spirit. 
It is his courage and wisdom that brings me strength every day.
    I take seriously representing the United States of America 
to the Republic of Portugal, which includes the Azores and 
Madeira. Portugal is amongst our oldest and most reliable 
allies. The history of our two nations has always been one of 
mutual respect and support. Portugal was the second country to 
recognize America's independence, and our consulate in the 
Azores is the oldest continually operating consulate in the 
world.
    If confirmed, I also look forward to working with the 
outstanding personnel that currently serve our country at 
Mission Lisbon.
    Portugal's traditional and geographic orientation to the 
Atlantic, the presence of 1.5 million Portuguese Americans 
living in the United States, and a strong pro-American 
sentiment across the political spectrum make the relationship 
between our two countries one of the three focal points of 
Portugal's foreign policy. This unique relationship has allowed 
us to turn to Portugal for political and material support in 
almost every peacekeeping mission the United States, NATO, and 
the United Nations has led since the end of the Cold War.
    If confirmed, it will be my job to lead Mission Portugal to 
further expand enhance this political and economic 
relationship.
    More recently, the Republic of Portugal was hit especially 
hard by the 2008 global recession, to the point where a 
financial rescue package was adopted in 2011. Mary and I were 
in Portugal for an extended trip in 2014 and saw for ourselves 
what the wage and spending cuts and tax increases were doing to 
the business environment. At that time, unemployment rates were 
over 15 percent, and they were double that for young adults.
    What we witnessed on that trip endeared us to the people of 
Portugal for life. Even with that economic backdrop, they were 
focused on the same values that we hold dear in America, God, 
family, and the belief that hard work will ultimately help one 
to succeed. These observations were not unfounded. Merely 3 
years later, Portugal is in the midst of a remarkable economic 
recovery.
    The United States is now Portugal's No. 1 trading partner 
outside the EU single market and the fifth largest trading 
partner overall. The most recent example of this resurgence in 
bilateral trade occurred in 2016 when Portugal received the 
first-ever shipment of liquefied natural gas from the United 
States to Europe.
    It is this newfound momentum in Portuguese business that 
makes it such an exciting time to engage in commerce between 
our two countries. Lisbon is currently rated one of the hottest 
technology startup cities in the EU. Given my former position 
as president of Pacific Crest Securities, I am uniquely 
situated to help partner U.S. and Portuguese businesses to 
build upon the technology boom we are seeing today.
    The emergence of small startups, incubators, and boot camps 
looks a lot like the San Francisco Bay Area did in the late 
1980s and early 1990s. If confirmed, I cannot wait to join the 
200-strong at Mission Lisbon to help them in their endeavor to 
support and expand the business ties between the United States 
and Portugal.
    Lastly, if I may, I would like to express my deepest sorrow 
for the family and friends of the over 60 dead, and hundreds 
injured in the latest forest fire in Portugal. This has been a 
tragedy of great proportions, and it is seldom that we see this 
kind of tragedy today.
    Coming from Oregon, where timber and timber-based products 
have been historically one our largest industries, I know the 
pain that a forest fire can render and the burden that an 
entire people can feel. Mary and I continue to include the 
families of those who perished and the brave firefighters who 
battled mightily in our prayers. I hope, somehow, someday, we 
can help prevent something like this from occurring again in 
the future.
    Distinguished Senators, once again, I would like to thank 
each and every one of you for your time. Please have confidence 
that, if confirmed, I will serve our great country, the United 
States of America, to the best of my abilities. Thank you.
    [Mr. Glass's prepared statement follows:]


                   Prepared Statement of George Glass

    Thank you, Senator Wyden, for your gracious introduction. And thank 
you especially for your many years of public service to our great State 
of Oregon. Both Mary and I sincerely value your friendship and thank 
you for being here today.
    Mr. Chairman, Ranking Member Cardin, and distinguished members of 
the committee, It is with great humility and honor that I sit before 
you today. I am deeply grateful to President Trump and Secretary 
Tillerson for their trust and support in nominating me to be the 
Ambassador to the Republic of Portugal. If confirmed, I am committed to 
focusing all my energies to further the interests of the United States 
of America.
    If I could take a moment, I'd like to introduce you to my family, 
for without their support and love, I would not be here today. I would 
like to acknowledge my wife Mary who is sitting here with me, she 
traveled out from Oregon to be here. I'd like to acknowledge my 3 sons 
and their wives who are supporting me from afar. Our oldest Gordon and 
his wife Giau are currently living in Japan. Our middle Son George and 
his wife Emily are not here for the best of reasons. They are due with 
their first child, and our first Grandchild in August. And lastly Our 
youngest son Andrew, who has just graduated from College and in the 
throws of his first job in Dallas Texas. I would also like to 
acknowledge my mother and step-father, Mary and Jay O'Leary, and Mary's 
parents Joe and Laurie Ferguson. Lastly, I want to thank my father who 
is here in spirit; his courage and wisdom bring me strength every day.
    I take seriously the responsibility of representing the United 
States of America to the Republic of Portugal, which also includes the 
Azores and Madeira. Portugal is among our oldest and most reliable 
allies. The history of our two nations has always been one of mutual 
respect and support. Portugal was the second country to recognize 
America's independence, and our consulate in the Azores is the oldest 
continually operating consulate in the world. If confirmed, I also look 
forward to working with the outstanding Foreign Service personnel that 
currently serve our country at Mission Lisbon.
    Portugal's traditional and geographic orientation to the Atlantic, 
the presence of 1.5 million Portuguese Americans living in the United 
States, and a strong pro-American sentiment across the political 
spectrum combine to make the relationship between our two countries one 
of the three focal points of Portugal's foreign policy. This unique 
relationship has allowed us to turn to Portugal for political and 
material support in almost every peacekeeping effort the United States, 
NATO, and the United Nations has led since the end of the Cold War. If 
confirmed, it will be my job to lead Mission Portugal to further expand 
and enhance this political and economic relationship.
    More recently, the Republic of Portugal was hit especially hard by 
the 2008 global recession, to the point that a financial rescue package 
was adopted in May 2011. Mary and I were in Portugal for an extended 
trip in 2014 and saw for ourselves what the wage and spending cuts, and 
the tax increases were doing to the business environment. At that time, 
unemployment rates were over 15 percent and nearly twice that for young 
adults. What we witnessed on that trip endeared us to the people of 
Portugal for life. Even with that economic backdrop, they were focused 
on the same values that we hold dear in America: God, family, and the 
belief that hard work will ultimately help one to succeed. These 
observations were not unfounded.
    Merely three years later, Portugal is in the midst of a remarkable 
economic recovery. Strong export performance and rebounds in private 
consumption and investment led to a positive GDP of 1.4 percent in 
2016. And this year Portugal has posted its lowest deficit since the 
1974 revolution, allowing the country to exit the EU's Excessive 
Deficit Procedure.
    The United States is now Portugal's No. 1 trading partner outside 
the EU single market and the 5th largest trading partner overall. The 
most recent example of this resurgence in bilateral trade occurred in 
April of 2016 when Portugal received the first ever shipment of 
liquefied natural gas from the United States to Europe. This was 
followed by a second shipment in February 2017. The Portuguese 
Government has expressed its eagerness to further expand bilateral 
cooperation in regards to energy.
    It is this newfound momentum in Portuguese business that makes it 
such an exciting time to engage in commerce between our two countries. 
Lisbon is currently rated one of the hottest technology start-up cities 
in the EU. Given my former position as President of Pacific Crest 
Securities, I am uniquely situated to help partner U.S. and Portuguese 
businesses to build upon the technology boom we're seeing today. The 
emergence of small startups, incubators, and boot camps looks a lot 
like the San Francisco Bay Area of the 80's and early 90's. If 
confirmed, I can't wait to join the 200 strong of Mission Lisbon in 
their endeavor to support and expand these business ties between the 
United States and Portugal.
    Lastly, if I may, I would like to express my deepest sorrow for the 
family and friends of the over 60 dead, and hundreds injured in 
Portugal's recent forest fire. This has been a tragedy of proportions 
seldom seen in our world today. Coming from Oregon, where timber and 
timber based products have been historically one our largest 
industries, I know the pain that a forest fire can render and the 
burden that an entire people can feel. Mary and I continue to include 
the families of those who perished and the brave firefighters that 
battled mightily in our prayers. I hope, somehow, we can help prevent 
something like this from ever happening again.
    Distinguished Senators, once again I would like to thank each and 
every one of you for your time today. Please have confidence that, if 
confirmed, I will serve our great country, the United States of 
America, to the best of my abilities. Thank you.



                               __________


    Senator Johnson. Thank you, Mr. Glass.
    The final nominee will be Mr. Risch.
    Mr. Risch?

STATEMENT OF CARL C. RISCH OF PENNSYLVANIA, TO BE AN ASSISTANT 
              SECRETARY OF STATE, CONSULAR AFFAIRS

    Mr. Risch. Chairman Johnson, Ranking Member Murphy, members 
of the committee, I am honored to appear before you as the 
President's nominee to be Assistant Secretary of State for 
Consular Affairs.
    I am joined today by my family, my wife of over 22 years, 
Wendy Taylor Risch, who has supported me throughout my career 
and accompanied me on three overseas assignments. Wendy also 
worked for the Department of State as a spousal employee during 
two of my overseas tours. I am also joined by our daughters, 
Anneke Risch, a rising 8th grader, and Ilse Risch, a rising 6th 
grader.
    My family is the center of my life, and instilling in our 
children a sense of kindness and empathy, as well as a respect 
for public service, is a priority for us.
    I am grateful to the President and Secretary Tillerson for 
the confidence and trust they have placed in me. It is, without 
a doubt, the greatest honor of my professional life to be 
nominated. And, if confirmed, I will devote all of my skills, 
experience, and attention to performing my duties.
    My wife and I are both natives of central Pennsylvania, 
where we were born, raised, and educated. I practiced law there 
for 8 years. My father, a veteran of the Korean War, worked for 
30 years in a factory, now closed, which made automotive parts. 
My mother stayed home with me after my adoption.
    Being an adopted person, I have felt a special kinship with 
the abandoned, the orphaned, and the forgotten, and this 
kinship has influenced me throughout my life. For example, over 
the past 9 years, I have volunteered to serve on refugee 
processing trips for my agency, USCIS, in Thailand, Pakistan, 
Namibia, and Malaysia, where I worked toward resettlement to 
the United States of hundreds of victims of persecution and 
torture.
    As an attorney and civil servant, I will bring to the 
Bureau of Consular Affairs the same values and principles that 
have guided my career for the past 22 years--a commitment to 
the rule of law, to efficiency, to justice, and to 
transparency. My entire career has been focused on serving the 
public, especially Americans living and working abroad, and to 
the equal and fair application of the law.
    I began my government service as a Foreign Service Officer. 
My consular tour was one of the most professionally enriching 
and rewarding experiences of my life. I am grateful and honored 
to have had the opportunity to work with the dedicated men and 
women of the State Department, especially in the days and weeks 
after the attacks of 9/11. In 2006, I returned to public 
service as a civil servant with U.S. Citizenship and 
Immigration Services.
    It is at USCIS where I expanded my knowledge of immigration 
and nationality law. I rose through the ranks at USCIS, first 
as an appeals officer, then as a manager, and finally as chief 
of staff of the agency.
    In 2013, my wife and I made the decision to return to 
international service, and I have spent the past 4 years 
serving USCIS in our embassies in the Philippines and in South 
Korea. During those years, I had the pleasure of working side-
by-side with consular sections throughout the world. I remain a 
dedicated civil servant to this day.
    If confirmed, it will be a privilege of a lifetime to lead 
the fine men and women of the Bureau of Consular Affairs. 
Consular officers are a first line of defense in our efforts to 
protect our country from those who will do us harm, and they 
are among the hardest working, most dedicated, and bravest 
employees in government service. They work in dangerous, 
uncomfortable places, all to serve the American people. This 
work is both complex and emotionally taxing, and I am immensely 
proud to say that I was once one of them, even for a short 
period of time.
    Since my days as a consular officer, so much has changed 
for the better at the State Department. A suite of interagency 
security review processes, continuous vetting of applicants 
using updated technology, biometrics capturing, a longer and 
better training program, a serious commitment to fraud 
detection, close cooperation with the Department of Homeland 
Security, and a culture of making national security a number 
one priority, this has strengthened State's shared mission to 
protect our homeland.
    Every visa decision the State Department makes thousands of 
times a day is a national security decision. If confirmed, I 
will strive to make sure our officers continue to have the 
training, resources, and leadership necessary to accurately 
adjudicate applications in accordance with the laws of the 
United States, while also facilitating legitimate international 
travel and protecting our national security.
    Should I be confirmed, I commit to working with members of 
this committee and to being responsive to your questions and 
concerns. Thank you for your time and I look forward to your 
questions.
    [Mr. Risch's prepared statement follows:]


                  Prepared Statement of Carl C. Risch

    Chairman Corker, Ranking Member Cardin, members of the committee, I 
am honored to appear before you as the President's nominee to be 
Assistant Secretary of State for Consular Affairs.
    I am joined today by my family: my wife of over 22 years, Wendy 
Taylor Risch, who has supported me throughout my career and accompanied 
me on three overseas assignments. Wendy also worked for the Department 
of State as a spousal employee during two of my overseas tours. I am 
also joined by our daughters, Anneke Risch, a rising 8th grader, and 
Ilse Risch, a rising 6th grader. My family is the center of my life, 
and instilling in our children a sense of kindness and empathy, as well 
as a respect for public service, is a priority for us. In the past five 
years, my daughters have lived in three different countries and, thus, 
have attended three different schools, all due to my service to the 
Government. I'm in awe at their resilience and positive attitudes, and 
we are both very proud of them.
    I am grateful to the President and Secretary Tillerson for the 
confidence and trust they have placed in me. It is, without a doubt, 
the greatest honor of my professional life to be nominated, and, if 
confirmed, I will devote myself to serving the American people in this 
important capacity within the Department of State.
    My wife and I are both natives of central Pennsylvania, where we 
were born, raised, and educated. I practiced law there for eight years, 
first as an associate attorney and later as a partner in a law firm. My 
father, a veteran of the Korean War, worked for 30 years at a factory, 
now closed, which made automotive parts. My mother stayed home with me 
after my adoption. I had a stable and happy childhood, and my parents 
encouraged my lifelong interest in--my passion for--international 
travel and public service. Being an adopted person, I have also felt a 
special kinship with the abandoned, the orphaned, and the forgotten, 
and this kinship has influenced me throughout my life. For example, 
over the past nine years, I have volunteered to serve on refugee 
processing trips for my agency in Thailand, Pakistan, Namibia, and 
Malaysia, where I worked toward the resettlement to the United States 
of hundreds of victims of persecution and torture, so that they could 
start new lives. My family and I have also served as cultural 
orientation volunteers for refugees already resettled in the United 
States.
    As an attorney and career civil servant, I will bring to the Bureau 
of Consular Affairs the same values and principles that have guided my 
career for the past 22 years--a commitment to the rule of law, to 
efficiency, to justice, and to transparency. My entire career has been 
focused on serving the public, especially U.S. citizens living and 
working abroad, and to the equal and fair application of the law. I 
began my government service as a Foreign Service Officer in 1999, after 
four years of private practice as an attorney. Choosing the consular 
cone was an obvious and easy choice for a young man entering the 
Foreign Service with an interest in immigration law. My consular tour 
was one of the most professionally enriching and rewarding experiences 
of my life, and leaving the Foreign Service to return to private 
practice and to start a family in Pennsylvania was a difficult career 
decision. Nevertheless, I am grateful and honored to havehad the 
opportunity to work with the dedicated men and women of the State 
Department, especially in the days and weeks after the attacks of 9/11, 
an experience that has profoundly affected me personally and 
professionally.
    In 2006, I returned to public service as a civil servant with U.S. 
Citizenship and Immigration Services. It is at USCIS where I expanded 
my knowledge of immigration and nationality law, as well as learned to 
manage adjudicatory systems and backlog reduction efforts. I rose 
through the ranks at USCIS, first as an appeals official, then as a 
manager, and finally as Chief of Staff. In 2013, my wife and I made the 
decision to return to international service, and I have spent the past 
four years serving USCIS in our embassies in the Philippines and in 
Korea, most recently as my agency's director in Seoul. During those 
years, I had the pleasure of working side-by-side with consular 
sections throughout the world, from Fiji to Namibia, to address thorny 
questions of law, policy, and process involving our shared mission of 
facilitating travel and lawful immigration to the United States. While 
abroad, I also had the honor of serving the interests of U.S. citizens 
living and working overseas, especially the men and women serving in 
the military. Assisting military families with lawful immigration was a 
highlight of my career, but my greatest honor was administering the 
oath of allegiance to hundreds of military members and spouses at 
dozens of overseas naturalization ceremonies. When I was asked by our 
career Acting Director to serve as Chief of Staff of USCIS, I was 
honored and immediately put in motion my family's early return to the 
United States. I remain a dedicated civil servant to this day.
    If confirmed, it will be a privilege of a lifetime to serve again 
in the Department of State and lead the fine men and women of the 
Bureau of Consular Affairs. Consular officers are a first line of 
defense in our efforts to protect our country from those who will do us 
harm, and they are among the hardest working, most dedicated, and 
bravest employees in government service. They often work in dangerous 
places, under challenging conditions, all to serve the American people 
and advance the interests of the United States. Many of those who work 
with us abroad are foreign nationals, lending their expertise in 
pursuit of our goals. Domestically, Consular Affairs' employees 
thoughtfully and promptly adjudicate millions of passports, work with 
colleagues at USCIS to process immigrant visa documents, and support 
the Bureau's global enterprise. Together, these talented professionals 
are responsible for advancing one of the Department of State's core 
responsibilities: protecting the lives and interests of U.S. citizens. 
The Bureau of Consular Affairs is committed to crisis management and 
response, assisting individual U.S. citizens who are imprisoned, 
injured, or in distress, and working with grieving family members when 
tragedy strikes. This work is both complex and emotionally taxing, and 
I am immensely proud to say that I was once one of them, even for a 
short period of time. If confirmed, I look forward to leading this 
critical organization in continuing to succeed in its important 
mission.
    Since my days as a consular officer, so much has changed for the 
better at the State Department and the Bureau of Consular Affairs has 
proved to be a center of innovation and leadership. An impressive array 
of interagency security review processes, continuous vetting of visa 
applicants using updated technology, biometrics collection, an improved 
training program, a serious commitment to fraud prevention, close 
cooperation with the Department of Homeland Security, and a culture of 
making national security a number one priority, has strengthened 
State's shared mission to protect our homeland. As my predecessor, 
former Assistant Secretary Michele Bond stated in her testimony before 
this committee two years ago, ``every visa decision we make, thousands 
of times a day, is a national security decision.'' If confirmed, I will 
strive to make sure consular professionals continue to have the 
training, resources, and leadership necessary to fulfill their duties 
in accordance with the laws of the United States, while augmenting our 
national security and facilitating legitimate international travel. As 
I have noted, CA's number one priority is the safety and protection of 
U.S. citizens overseas, and, if confirmed, I will make this my number 
one priority as well.
    Should I be confirmed, I commit to working with members of this 
committee and to being responsive to your questions and concerns. Thank 
you for your time and I look forward to your questions.


    Senator Johnson. Thank you, Mr. Risch.
    I want to thank all the nominees for your testimony.
    Mr. Glass, by the way, congratulations on your soon-to-be 
first grandchild. I have three now. They are everything they 
say, all of the joy with a lot less responsibility.
    Mr. Glass. Wonderful. I am looking forward to it.
    Senator Johnson. You will enjoy it.
    I want to thank all my colleagues for your strong 
attendance, and in respect of your time, what I will do is I 
will hold off on my questions until the very end.
    Senator Isakson, if you are ready?
    Senator Isakson. Mr. Chairman, I did not really come for a 
question. I came to pay tribute to Ms. Gingrich. We have 
something in common. She married Newt Gingrich. I replaced him 
in the House of Representatives.
    [Laughter.]
    Senator Isakson. He got the best end of that deal, I can 
tell you.
    But Callista is a lady of great talent. In fact, one of her 
great, great persuasive talents is to not only convince Newt to 
marry her but convert him to Catholicism, which will serve him 
well in the Holy See, as well.
    Callista, we are mighty proud of you. We are very proud of 
Newt. I know you will do a great job, and I just want to be 
here to cheer you on and tell you how proud we are of you.
    Ms. Gingrich. Thank you so much, Senator.
    Senator Johnson. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to all of the nominees for your willingness 
to take on these positions and to serve this country.
    I want to begin with you, Mrs. Gingrich, because you talked 
about the important role of Catholic charities and the Catholic 
mission around the world. I certainly agree with that. I had 
the opportunity to visit a nursing home in northern New 
Hampshire on Friday that is operated by Catholic charities in 
the State providing great care to people.
    So I wanted to ask you, I know that Pope Francis has called 
on America and the rest of the Western world to uphold our 
tradition of moral leadership by welcoming vulnerable refugees 
fleeing violence and oppression into our country. I just wonder 
how you would argue the United States' position that is taken 
by this administration that has been less welcoming of 
refugees, and how will you work with the Holy See on that very 
critical issue?
    Ms. Gingrich. The President and the Pope should have grave 
concerns regarding the global refugee and migration crisis, and 
this is a priority for our President to deal with right now. We 
have a deep commitment in this country to work to forward peace 
and stability, so people do not have to become refugees.
    The United States has been and will continue to be the 
largest provider of humanitarian aid in the world. We are not 
disengaging. If confirmed, I look forward to working with the 
Holy See to emphasize the impact that our foreign assistance 
will have, and our partners around the world.
    Senator Shaheen. Well, certainly, we are not disengaging on 
foreign aid. I agree with that, and I think that we should 
continue to support that in every way we can, especially in 
those places where we are seeing famine as the result of 
manmade conditions.
    But this administration has reduced the ability of refugees 
to come to the country, particularly Syrian refugees who are 
fleeing violence and a horrible situation in their own country.
    Is this something that you think we can work with Pope 
Francis and the Holy See to try to ensure that we can help 
those refugees who are trying to get into the country?
    Ms. Gingrich. I think we can communicate our commitment to 
help those most in need, yes.
    Senator Shaheen. Thank you.
    Professor Sales, Secretary Tillerson has spoken repeatedly 
about the possibility of increased cooperation with Russia. In 
Syria, we have a ceasefire that still seems to be holding in a 
very small southern part of that country. But time and again, 
Putin has demonstrated that he is interested in preserving the 
Assad regime.
    So do you believe that we share the same interests and 
objectives in Syria? And if not, how would you describe our 
objectives differently?
    Mr. Sales. Thank you for the question, Senator.
    I think the answer is yes and no. I think we do have some 
shared objectives in Syria. We face a common enemy in ISIS. We 
have other interests that diverge, as you well know, Senator.
    As to what we can do with Russia or other members of the 
international community to achieve our objectives in Syria, our 
number one priority, I think, as the administration has made 
plain, is to defeat ISIS. What that means is taking their 
leaders off the battlefield and their foot soldiers off the 
battlefield, liberating the cities that they have seized, 
defeating their ability to recruit foreign fighters from around 
the world, particularly Europe, and drying up their sources of 
funding.
    The key question after that goal is accomplished is what 
comes next? I think one important thing that has to happen is a 
political process involving all of the relevant stakeholders 
that can produce stability, such that the people of Syria can 
chart a way forward.
    That is something that cannot be accomplished entirely by 
military force. It is something that is going to require 
sustained diplomatic engagement.
    And, Senator, if I am confirmed to this position, that is 
going to be a priority of ours.
    Senator Shaheen. Thank you. One of the benefits that we 
have in fighting terrorism at home is engagement from the 
communities that terrorists have often come from. In the Muslim 
community, for example, making sure that there are good 
relations with people in the Muslim community here has been 
very helpful here.
    How would you see our promoting those kinds of positive 
relationships?
    Mr. Sales. I could not agree with you more, Senator. It is 
absolutely critical to maintain strong relationships with 
domestic populations, as well as international populations, 
because oftentimes, these are the groups of people who have the 
first insight into the fact that a problem may be taking place. 
It is critically important for us to have open lines of 
communication, such that our friends are confident that they 
can tell us we think that something amiss may be afoot without 
fear of stigmatization or any other sort of negative 
repercussion.
    So I strongly agree with the sentiment behind that question 
and look forward to maintaining those strong relationships, 
Senator.
    Senator Shaheen. Thank you. I have other questions for the 
panelists, but my time is up, sadly.
    Senator Johnson. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks and congratulations to all the witnesses for your 
nominations.
    To Mr. Glass, the U.S.-Portugal relationship is a very 
important one. I do a lot of work in the Iberian Peninsula in 
my work on this committee, and I applaud you for that 
nomination.
    Mr. Risch, consular officials have very tough work. They 
really do. When I travel for the Foreign Relations Committee, I 
always ask to meet without the Ambassador with FSOs on their 
first or second tours, and they are almost always out of the 
consular section.
    I basically say, congratulations, you have achieved a 
wonderful job working for the State Department. What will be 
the difference as to whether you make it a career or whether 
you leave after a few years. That is usually all I have to say 
to engender about a 2-hour conversation. I really enjoy 
visiting with our consular officials. And your work will be 
very important.
    A question or comment for each Mr. Sales and Ms. Gingrich.
    Ms. Gingrich, I am very happy with your answer to Senator 
Shaheen's questions about refugees. I was at the Vatican in 
February and had an opportunity to meet briefly with the Pope 
and with other Vatican officials purely on the refugee issue. 
In my conversation with the Pope, I thanked him for his 
leadership.
    Obviously, a key aspect of his speech to Congress in 2015 
was about refugees. He had given a speech the day before my 
visit in Rome focused on refugee issues. And he was pleading 
with the United States to please be a leader on these issues. I 
was thanking him for his leadership, but he was not just going 
to accept the thank you. He wanted to put an ask on our 
shoulders. And, as you know, there are so many issues in this 
important bilateral relationship, and I know that that will be 
an important one.
    You are not the budget official, so I completely get this. 
You play the hand that you are dealt by a President's submitted 
budget, and also the budget that Congress comes up with. But 
the cut to the refugee bureau proposed in the President's 
budget, the refugee bureau within the State Department, is 31 
percent.
    I think that sends a very loud message. Rhetoric sends a 
message, and budget sends a message. Probably the two most 
significant messages you can send are with the rhetoric and 
with the budget. We are sending a message.
    I hope that it is the will of this body to do some repair 
on the budget, so that the message that we send is not one that 
we are reducing America's traditional commitment to those 
issues.
    I take you, because of your background, the comment that 
you made to Senator Shaheen, that you will do all you can to 
advance our longstanding policy of being a Statue of Liberty 
Nation that welcomes people who are oppressed, I appreciate 
your commitment to that.
    Mr. Sales, let me just ask you this. I am on the Armed 
Services Committee as well. Last year, we were able to get 
something done in the NDAA that I thought was pretty good, and 
my colleagues agreed. We enabled, through the NDAA, the DOD to 
transfer funds to State or USAID on the say-so of the SecDef 
for countering violent extremism, if the SecDef felt like, 
``Well, I think State or USAID can do a better job at this than 
us.''
    So, in particular areas, it really has been more in the 
expertise of State or USAID to do particular programs that can 
counter violent extremism, and sometimes the State and 
diplomatic touch is better than the military touch.
    So if the SecDef agrees, there is no transfer authority. I 
hope that that is something that you will look at.
    But I have noticed there has been some discussion of 
stripping away some CVE aspects of the administration's 
counterterrorism strategy.
    To your knowledge, and I know we are not presuming 
nomination, so you are not there yet, but will CVE remain a 
strong priority of the CT Bureau at the State Department?
    Mr. Sales. Yes, Senator. If I am confirmed, it will 
continue to be a top priority for me and for the bureau that I 
would lead.
    I think all counterterrorism has to involve a countering 
violent extremism component. Terrorism is a global problem that 
presents all sorts of different facets, and some of those 
facets require different kinds of solutions. Sometimes military 
solutions are required. Sometimes law enforcement solutions are 
required.
    But it is not just hard power that has to be deployed to 
counter ISIS, Al Qaeda, and other like-minded groups. We also 
have to use the softer tools in the national toolkit, such as 
moral suasion, such as engaging at the community level, such as 
providing off-ramps for those who might be tempted to take a 
path toward radicalization.
    So I am grateful for this capability that you and others 
have worked to build into the State Department. And if 
confirmed, I will continue the good work that has been done, 
Senator.
    Senator Kaine. And, Ms. Gingrich, if I can just go back, 
because you have a communications background, too, and, of 
course, CVE is an important priority of the Vatican, as well.
    Could you talk a little bit about, to my last question, how 
you see your role as Ambassador to the Holy See and what you 
could do in the bilateral relationship with the Vatican to 
counter extremism?
    Ms. Gingrich. Well, it is very exciting to have the 
opportunity, if confirmed, to be working at an Embassy, to lead 
an Embassy, that has a global influence and works on a global 
scale.
    I am very interested in working on projects to advance 
religious freedom, to fight terrorism and violence, to combat 
human trafficking, to fight diseases like HIV/AIDS and Ebola, 
and to work on--to seek peaceful solutions to crises around the 
world. So this is an awesome opportunity, if I am confirmed.
    There are many issues on which we do agree. We have a very 
strong bilateral relationship with a shared agreement on many 
issues. Of course, there are always issues where diplomatic 
partners do not agree. But I look forward to working on those 
issues of our shared policy opportunities.
    Senator Kaine. Thank you, Mr. Chairman.
    Senator Johnson. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Congratulations to all of you.
    Mr. Risch, in 2007, you appeared before the House 
Subcommittee on the Civil Service, Census, and Agency 
Organization of the Committee on Government Reform in a hearing 
titled, ``Strengthening America: Should the issuing of vises be 
viewed as a diplomatic tool or security measure?''
    You said, and I quote, ``During my tenure as unit chief, I 
adjudicated approximately 25,000 visa applications. I resigned 
in May 2002, even though I received top evaluation in a 
challenging onboard assignment. While I longed to return to my 
private practice, I was also discouraged by the State 
Departments lack of dedication to the effective enforcement of 
the immigration laws of the United States. I took my job very 
seriously. The State Department did not.''
    So, Mr. Risch, do you believe the State Department is not 
committed to the rule of law and the national security of the 
United States?
    Mr. Risch. Thank you, Senator, for the question, and for 
the opportunity to address that testimony.
    I will point out that the testimony was in 2002, not in 
2007, so it was 15 years ago that that testimony took place. It 
was during the time when the Department of Homeland Security 
was just being stood up. It was in the almost immediate 
aftermath of 9/11.
    I believe a lot has changed at the State Department in 15 
years, and I am very enthusiastic about the future of the way 
the Bureau of Consular Affairs will be fulfilling its function. 
With interagency cooperation and continuous vetting.
    Senator Menendez. I do not want my time to expire. We have 
a lot of candidates here.
    Do you believe the State Department is committed to the 
rule of law and the national security of the United States?
    Mr. Risch. Currently, Senator, I absolutely do.
    Senator Menendez. All right. Let me ask you, you went on in 
the same hearing to say, ``The fact that even I was terrified 
by State's incompetence and apathy toward law enforcement 
proves just how far this problem has progressed. I urge the 
Congress to support the transfer of the visa-issuing function 
from State's Bureau of Consular Affairs to the new Department 
of Homeland Security, a department that will be committed to 
the rule of law and the national security of the United 
States.''
    Now, PRM's mission is to provide life-staining assistance 
to those who are persecuted, uprooted people, by working 
through multilateral systems, to build global partnerships, 
promote best practices in humanitarian response, ensure that 
humanitarian principles are thoroughly integrated into U.S. 
foreign and national security policy. For example, refugees and 
migration are important policy issues in our bilateral 
relations with countries like Turkey and Iraq.
    So do you believe that the Department of Homeland Security, 
which is notoriously bloated with a whole host of dysfunctional 
components, should be responsible still to have the visa, the 
very essence of the department you are being nominated to, to 
be transferred to the Department of Homeland Security?
    Mr. Risch. Well, 15 years ago, Senator, I stand behind my 
testimony. It was a completely different time, and there was a 
lot of talk about consolidating different things into the 
Department of Homeland Security.
    Currently, I watched the Deputy Secretary testify yesterday 
that it is currently not the intent of the Department of State.
    Senator Menendez. I am not asking what their intent is. I 
am asking you your view. You are being nominated for this 
position.
    Mr. Risch. My view is I would follow the leadership of the 
Department of State, if confirmed. But as of today, I intend to 
lead the Bureau of Consular Affairs as it is currently formed. 
I believe that I will be, if confirmed, a strong leader of all 
functions of the Consular bureau, including the visa function.
    Senator Menendez. Mr. Sales, since 9/11, the United States 
has been developing and redeveloping strategies to counter 
terrorism and violent extremism. Our experiences in Iraq and 
Afghanistan lead very little doubt that extremist ideologues 
and terrorists flourish and find the best recruits in areas of 
conflict and poverty and where people have no hope for the 
future.
    The 2016 State Department and AID joint strategy on 
countering violent extremism outline five objectives. In those 
objectives, they talk to those very issues that I just spoke 
about.
    So my question is, how do proposed cuts to the State 
Department and USAID programs that are the foreign assistance 
tools that advance the goals of combating terrorism and violent 
extremism actually align with our very own policy?
    Mr. Sales. Thank you for the question, Senator. I spent 
some time in academic bureaucracies. I have spent some time in 
government bureaucracies. In my experience, it is usually the 
case that they can afford to tighten the belt a bit.
    Now, as far as the overall State Department budget is 
concerned, Senator, Congress has the power of the purse under 
the Constitution, so Congress will have to decide the levels at 
which it wishes to fund these activities.
    Senator Menendez. My problem with these answers is that you 
all want to kick the ball to someone else, but your nominations 
are, in essence, going to be part of policy decision-making. 
You will be in a room to be able to advocate at the State 
Department and interagency.
    So simply saying that Congress has the power of the purse, 
I am fully aware of that. The question is, what is your 
advocacy at a given point in time? Are these the essential 
programs that are necessary, as Secretary Mattis has said, that 
this is how we fight these ideologues? This is a guy who is a 
general.
    So I would like to get better answers.
    Finally, if I may, Mr. Chairman, Mr. Glass, we have a lot 
of Portuguese-Americans in New Jersey and from the Azores, an 
extraordinary group of citizens that have done extraordinary 
things in communities.
    Have you visited Portugal?
    Mr. Glass. I have.
    Senator Menendez. Do you speak Portuguese?
    Mr. Glass. At this time, no. I have had some Spanish, and I 
am working on Portuguese and will certainly utilize the experts 
that are in the Embassy to help us learn the language.
    Senator Menendez. I ask that question, because, in the 
past, these questions have been asked, when I was the chairman, 
of the nominees. And for some, it was disqualifying. For me, it 
is not. But I just wanted to know.
    Thank you very much.
    Senator Johnson. Mr. Glass, why don't you take this 
opportunity right now to provide some comfort to Senator 
Menendez. Talk about your experience on your trip to Portugal 
that you conveyed to me in my office.
    Mr. Glass. The trip that Mary and I took to Portugal was 3 
years ago. We were on a pilgrimage to Fatima. When we got 
there, it truly transformed our lives. It transformed the way 
we look at each other. It transformed the way we look at our 
religion.
    As we traveled throughout the country, we realized the 
hospitality of the people there was extraordinary. And this was 
at a time, 3 years ago, that they were under a very severe 
recession. They had an austerity program that was enacted, so 
there was a lot of unemployment. Yet, that did not stop 
everybody from welcoming us there.
    So we knew at the time when we left that we, frankly, left 
a big piece of our hearts there and that we wanted to come 
back. We certainly had no idea that we would possibly be coming 
back, if confirmed, in this role.
    But Portugal is very important to us, and we look forward 
to serving the United States in Portugal.
    Senator Johnson. Senator Udall?
    Senator Udall. Thank you very much, Chairman Johnson.
    New Mexico, my home State, has one of the oldest Catholic 
traditions in the country, and it has been over 400 years since 
the Catholic Church was first established in the State of New 
Mexico, which obviously was not a State at the time. Those 
traditions still run very strong in the State.
    Like Pope Francis, many New Mexicans have a strong 
reverence for St. Francis de Assisi. In fact, the Catholic 
missionary efforts in New Mexico were started by the order 
named for him, the Franciscans.
    The full name of my hometown of Santa Fe, the oldest 
capital city in the country, is also named for St. Francis. Its 
full name is La Villa Real de la Santa Fe de San Francisco de 
Assisi, the Royal Town of the Holy Faith of St. Francis of 
Assisi. The traditions of St. Francis run strong in New Mexico.
    The Pope honors the saint by taking his name and working in 
his tradition, writing in his encyclical, ``Laudato Si,'' or 
``Praise Be to You,'' and it was subtitled, ``On Care for Our 
Common Home,'' Pope Francis stated, ``I believe that St. 
Francis is the example par excellence of care for the 
vulnerable, and of an integral ecology lived out joyfully and 
authentically. He is the patron saint of all who study and work 
in the area of ecology, and he is also much loved by non-
Christians. He was particularly concerned for God's creation 
and for the poor and outcast.''
    Those are the words of the Pope. The Pope gifted his 
encyclical on climate change to President Trump when he visited 
the Pope at the Vatican.
    Pope Francis in ``Laudato Si'' and on many other occasions 
has called on Catholics and people from every faith to work 
together to address climate change and protect the environment.
    In New Mexico, my constituents are at the frontlines of 
global warming, and we are already beginning to see the impacts 
of extreme weather events.
    Ms. Gingrich, could you share your thoughts on ``Laudato 
Si'' and how you would dialogue with the Holy See regarding 
climate change and what Pope Francis calls a dialogue about how 
we shape the future of the planet?
    Ms. Gingrich. Well, the Pope and the President share a 
great concern about our environment. President Trump wants to 
maintain that we have clean air and clean water, and that the 
United States remains an environmental leader. As President 
Trump said, we will disengage and pull out of the Paris 
Agreement, and either we enter the Paris Agreement or an 
entirely new agreement, one that is fair to Americans.
    If confirmed, I look forward to working with the Holy See 
as the United States pursues a balanced approach to climate 
policy, one that promotes American jobs, American prosperity, 
and energy security.
    Senator Udall. I really believe the essence and core of 
diplomacy is listening and having an open mind, and I hope that 
you will go over there with that approach and listen to the 
Pope.
    The Holy See has played an important role, along with the 
United States, to engage Cuba and to improve relations with our 
island neighbor. Cardinal Ortega in Cuba and Pope Francis have 
used the dialogue to help resolve differences between the 
United States and Cuba.
    What are your views on this dialogue? And would you be 
willing to work with the Vatican to increase ties between the 
United States and the Cuban people?
    Ms. Gingrich. Well, we certainly appreciate the Holy See's 
concern for a better relationship between the United States and 
Cuba. If confirmed, I look forward to working with the Holy See 
to advance religious freedom and human dignity and human rights 
in Cuba.
    Senator Udall. Do any of the other panelists have a view on 
the Pope's encyclical on climate change?
    I take that as no? No, no, no, all three.
    Okay, thank you very much.
    Senator Johnson. Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    Thank you all for being here.
    I wanted to follow up on Senator Menendez's line of 
questioning, especially to you, Mr. Risch, and to you, Mr. 
Sales, because it is an important point. You are going to be 
asked for your opinion. In fact, you are being nominated to 
your positions because of your policy expertise in both of 
these areas.
    So he is right. It is simply not enough to suggest that you 
are going to follow orders. It is important for the nominating 
committee and for the Senate to know what advice you are going 
to be giving.
    So, Mr. Risch, let me just drill down to ask you a question 
that you have not answered yet, which is, if you were asked for 
your opinion as to whether State should retain function over 
visa responsibilities, or it should be shifted to the 
Department of Homeland Security, what will your advice be?
    Mr. Risch. Thank you, Senator.
    This has been a subject of debate for quite some time. My 
understanding is, currently, the debate is framed around 
government efficiency. When I have seen this proposal bubble 
up, usually, it has been in the context of these efficiency 
initiatives and brainstorming sessions.
    I cannot speak to whether or not it would bring a certain 
efficiency to move that function from one department to the 
other. I do not intend to advocate for that. I am simply not in 
the position to make that efficiency call around that function.
    My concern in the past in criticizing the State Department 
was around a lack of respect for consular work, around national 
security concerns, and around the rule of law. I believe those 
issues have been addressed, so I do not intend to advocate for 
that change based on any concern around the way the State 
Department does its job.
    Senator Murphy. Okay. I think that is fairly clear. It is 
important for us to understand whether you are being nominated 
to this position to effectively end the functionality. And I 
hear you to be saying that that is not your intent.
    Mr. Risch. It is not my intent, Senator. I do not intend, 
if confirmed, to lead a diminished Bureau of Consular Affairs. 
I intend to lead a bureau that I believe will probably be 
gaining responsibility and importance in protecting our 
country.
    Senator Murphy. Thank you.
    Mr. Sales, I appreciate your answer around efficiency. I do 
not think any of us disagree that every bureaucracy can get 
more efficient. But that is not what is happening to the 
Department of State.
    This is a strategic focus on a greatly diminished capacity, 
and specifically some of the biggest cuts happen under your 
portfolio. So there is a 10 percent cut in funding for the 
counterterrorism bureau. But then more damaging, there is a 30 
percent cut to NADR funding proposed in the President's budget, 
and that is foreign aid for counterterrorism activities at 
State. That budget request moves a $1.1 billion fund down to a 
$680 million fund.
    So do you think that you can effectively carry out on the 
set of responsibilities you are given with a 30 percent cut to 
NADR funding, which seems to go beyond just those savings that 
can be captured by efficiency?
    Mr. Sales. Thanks for the question, Senator. I will answer 
it as best I can from my vantage point as an outsider, somebody 
who has not yet gotten a great deal of visibility on the 
internal deliberations on these very important questions.
    So with that caveat, what I can tell you is, if I ever 
thought--we talked about this yesterday in your office, 
Senator, so I can assure you that if I ever thought that I did 
not have the resources I needed to do the job to which I had 
been confirmed, I would have no hesitation whatsoever about 
raising that concern with my superiors and advocating for what 
I deem to be necessary.
    Senator Murphy. I appreciate that answer. I think if that 
is your sincere answer, you will be in a position of advocating 
very vigorously very early.
    The hiring freeze that at first applied to the entirety of 
the Federal Government now applies to only one agency, and that 
is the State Department. And you will all feel that, because 
you will not be able to hire individuals that you need in order 
to perform the tasks at your departments and your embassies. 
Extraordinary measures have been taken to prevent lateral 
transfers within the Department of State. Thus, you will see 
certain functionalities hollowed out because of the traditional 
ways in which State moved people back and forth are no longer 
available.
    There is something extraordinary happening right now, and 
many of us cannot derive the motivation for it. But you are all 
going to feel the brunt of it. I hope that all of your answers 
would be the same as Mr. Sales, that if you felt that you did 
not have the resources, that notwithstanding the decisions that 
have been made by the White House, you would argue for more 
resources.
    Thanks, Mr. Chairman. If we have a second round, I might 
have more one or two more.
    Senator Johnson. Before I turn to Senator Merkley, as long 
as we are on the subject, Mr. Sales, talk about your experience 
at DHS and the coordination that is going to be incredibly 
important between the Department of State and DHS. I think that 
is a legitimate discussion point, in terms of where these 
activities are best carried out.
    Mr. Sales. Thank you, Senator.
    In my experience at DHS, one of the most important areas of 
international engagement that bears real fruit, in terms of 
counterterrorism, is information-sharing. It is really 
critically important for our international allies to tell us if 
they know about a known or suspected terrorist who might be 
trying to travel to the United States, to tell us if they know 
about somebody who has a criminal history as long as your 
forearm trying to travel to the United States.
    We have made some great strides toward ensuring more 
effective sharing of that kind of information since 9/11. Here 
in the United States, we have pioneered information-sharing. 
After 9/11, one of the refrains that we constantly heard was 
the need to tear down the wall. Well, there are not just walls 
in our domestic law. There are also walls in our international 
relations that impede the effective sharing of information.
    So if I were confirmed to this position, that would be, I 
think, a top priority of mine, working with our allies around 
the globe to talk about ways to share that information to 
enhance our counterterrorism effectiveness on both sides of the 
transaction.
    Senator Johnson. Okay, I just wanted to give you that 
opportunity, because I think when you take a look at this 
massive Federal Government, with the results of the 9/11 
commission talking about the stovepipes, it is a legitimate 
management discussion and, quite honestly, an initiative to 
take a look at where best these functions should reside.
    So I do not see any problem whatsoever in having this 
administration do a top-to-bottom review and take a look at 
that. And where it all shakes out, there is a second branch of 
government here, and Congress will certainly engage in that. 
Certainly, under my other committee, chairman of Homeland 
Security and Government Affairs, will be discussing these 
things. But this is what effective management does. You are 
always doing postmortems. You are always taking a look at what 
is the most effective way to spend the money to get the best 
result.
    So with that, Senator Merkley?
    Senator Merkley. Thank you very much, Mr. Chairman.
    It is a pleasure to join my colleague, Senator Wyden, in 
welcoming our fellow Oregonian, George Edward Glass, nominated 
to serve as U.S. Ambassador to Portugal. Mr. Glass has probably 
been introduced in terms of the details, that he is a native 
Oregonian, a proud graduate of the University of Oregon, but I 
want to emphasize those things again, and that he certainly has 
tremendous Oregon passions, like the love of Oregon's outdoor 
spaces and Ducks football--hopefully a good season ahead.
    I am grateful that he is willing to put those loves on hold 
to be overseas to serve our country.
    A warm welcome to Mr. Glass's wife, Mary. Thank you for 
joining us today.
    Ambassadorial posts are necessarily family affairs, so I 
appreciate the fact that Mrs. Glass is willing to join her 
husband in traveling and representing the United States in 
Portugal.
    Portugal has been a very important ally, and we have seen a 
very intriguing and successful economic story unfold there. I 
think nurturing this relationship will be of great service. I 
thank you, Mr. Glass, for being willing to undertake that 
mission.
    Mr. Glass. Thank you, Senator Merkley. Thank you for 
serving the great State of Oregon in the United States Senate. 
We really appreciate it.
    Senator Merkley. You are welcome.
    And, Ms. Gingrich, I wanted to follow up on the question 
that was asked in regard to the Pope's encyclical. He gave it 
as a present to President Trump when he was there. Has 
President Trump had a chance to read or digest that encyclical?
    Ms. Gingrich. I am not aware whether or not he has read the 
encyclical.
    Senator Merkley. In your preparation to serve, have you had 
a chance to take a look at it?
    Ms. Gingrich. I have looked at some of it, sir.
    Senator Merkley. Are there pieces of it that particularly 
resonate for you?
    Ms. Gingrich. Well, I think we are all called to be 
stewards of the land. You know, as I said earlier, President 
Trump cares for our environment. He wants to sustain our clean 
air and our clean water, and he wants the United States to be 
an environmental leader.
    We are not backing off of that. But we are looking to 
increase the security of this country, to promote more jobs for 
Americans, and to have better prosperity. So the focus is 
slightly different, but we do want to remain an environmental 
leader.
    Senator Merkley. The Pope has indicated that he feels that 
there is a huge urgency to acting quickly to address the basic 
factors driving climate disruption. Do you share that sense of 
urgency?
    Ms. Gingrich. Well, I do believe that climate change 
exists, and that some of it is due to human behavior. But I 
think as the President pursues a better deal for Americans, we 
will, indeed, remain an environmental leader in the world.
    Senator Merkley. I appreciate your confidence in that. I 
must say I must have missed a few of the President's statements 
that have given you that have faith. I wish it were so. I am 
not persuaded, but perhaps we will see more unfold in that 
regard.
    What other two or three things do you see as the key to 
your particular responsibilities, should you hold this post?
    Ms. Gingrich. If confirmed, I am looking forward to working 
with the Holy See to combat human trafficking. This is a 
horrific offense that threatens our global security. The 
President has made it a priority to combat human trafficking. 
Chairman Corker and other members of this committee have made 
it a priority as well. The Holy See is a valued partner in this 
regard, and the Pope has lent international focus to this 
issue.
    So if confirmed, I look forward to working with the White 
House, the Congress, and the Holy See to combat human 
trafficking around the world.
    Senator Merkley. My appreciation to all of you for putting 
yourselves forward in what can be a complex, difficult, and 
trying nominations process.
    With that, I will yield back the rest of my time.
    Senator Johnson. Thanks, Senator Merkley.
    Looking at my list of questions, when I did some follow-ups 
to some of the other Senator's questions, I have pretty well 
covered it and questioned everybody except for Mrs. Gingrich, 
my fellow Wisconsinite.
    So let me just give you an opportunity. George Santayana, I 
am probably mispronouncing it like I did ``basilica'' earlier, 
a senior moment, made the famous statement that those who do 
not remember history are condemned to repeat it. I know both 
you and your husband are serious students of history.
    In particular, your study of Pope John Paul II, your 
documentary, ``Nine Days That Changed the World,'' from my 
standpoint, that really puts you in a very good position to 
understand exactly the power of leadership. And I believe, as I 
am sure you do to, I think America has been a phenomenal force 
for good in the world. I think the Catholic Church has been a 
phenomenal force for good in the world.
    In my own community, one of the things I got involved in 
that got me involved in public service was trying to save the 
Catholic school system there as a private-sector alternative.
    So can you just talk a little bit about your study that 
produced those documentaries and how that leadership--what you 
learned in terms of leadership and how America and the Holy See 
can work together to really help change the world?
    Ms. Gingrich. Our movie, ``Nine Days That Changed the 
World,'' highlights this exact topic.
    In 1979, Pope John Paul II traveled to Poland on a historic 
pilgrimage to see the Polish people, and it was against the 
wishes of the communist government. Millions of Poles came out 
to greet the Holy Father. It was really seen as the beginning 
of the end of communism in Poland and Eastern Europe.
    Pope John Paul II worked very closely with President 
Reagan. Ten years later, you had the first free elections in 
Poland.
    So it is so important that we reach out to places like the 
Holy See to forward good in this world and to make it a better 
place to advance our peace and our freedom and our human 
dignity.
    Senator Johnson. I think an ambassador that understands 
that history, understands the power of that leadership, is 
perfectly suited for this position.
    Senator Murphy, do you have any further questions?
    Senator Murphy. Just an additional two questions.
    One for Mr. Risch. We have been talking about this 
administration's policy toward refugees. Multiple courts have 
held that the policy is illegal, in part because it appears 
discriminatory, given that it is targeted only to refugees of 
certain countries, when we have security vulnerabilities that 
still exist in many other refugee programs, in many other 
immigration programs, I would argue visa waiver at the top of 
that list.
    Can you speak to whether you believe that the only means of 
protecting this country is an outright ban on refugees? Or 
whether you believe that, at some point, there is going to be 
an amendment of this policy by the administration, may be 
advocated by you once you are in place, to provide additional 
screening within the program to allow it to restart? Do you 
need the ban or can you make changes to the program that 
satisfy the concerns that many people have about it?
    Mr. Risch. Thank you, Senator.
    As for refugee policy, I will point out that that really is 
not something that would fall underneath the Bureau of Consular 
Affairs. It would really be under PRM and their relationship 
with my agency now, USCIS.
    As for vetting, at least in the refugee context, I can 
speak as someone who has done refugee interviews over many 
years that the interviews are very detailed and go into great 
detail about their persecution story, biographic data. And 
every one of them is spoken to by an American officer.
    So as for whether or not refugees are screened, they most 
certainly are, in the sense that they are spoken to at great 
length about their qualifications.
    As for the current situation with a travel pause of certain 
countries and the way that is playing out, I certainly support 
any kind of steps that are necessary to review our national 
security posture and take a look at whether or not our vetting 
processes are sufficient to protect the United States.
    Senator Murphy. Mr. Sales, let me ask you one specific 
question, and then I will defer to written questions for the 
remainder.
    We talked a little bit in my office about some of the 
current conflicts in the Middle East today. The most recent 
intelligence estimate provided to Congress shows that AQAP, 
which has always been the most lethal and most homeland- 
oriented arm of Al Qaeda, is growing stronger and stronger 
inside Yemen because of the civil war. Under the Obama 
administration, there was a robust political process that 
Secretary Kerry was leading to try to end that violence and to 
try to end the benefit that was being provided to AQAP.
    I have talked to all of the players inside that conflict, 
and none of them see that political process happening today. It 
is, by and large, dead, in part because Saudis feel empowered 
by the green light that they interpret as having been given 
through the President's visit there.
    Can you just speak to the importance of a political process 
inside Yemen and the danger of allowing for this civil war to 
persist, given the growth of AQAP during that time?
    Mr. Sales. Senator, I could not agree more with the premise 
of your question that a purely military solution is never going 
to achieve the counterterrorism gains we need.
    What is needed is a stable environment, because as you 
point out, terrorists thrive in political vacuums. That is the 
lesson of Afghanistan. That is the lesson of Libya. That is the 
lesson of Iraq.
    So diplomatic engagement, I think, is absolutely essential 
to ensure that we have a durable and stable status quo in Yemen 
to bring the fighting to an end and empower local players to 
gain control over territory and borders.
    That is the only way you are going to get AQAP under 
control, Senator.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    Again, I want to thank all the witnesses for your 
testimony. Congratulations again on your nominations. I want to 
congratulate the President. I really think that the selection 
here, your unique backgrounds and capabilities I think suit you 
well for the positions to which you have been nominated.
    Thank you for your willingness to serve. I want to thank 
your families. You will probably be seeing less of your loved 
ones. These are serious responsibilities.
    But again, thank you very much.
    With that, I have to find the secret words here.
    For the information of the members, the record will remain 
open until the close of business on Thursday, July 20.
    Senator Johnson. This hearing is adjourned.
    [Whereupon, at 11:19 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
      Submitted to Callista Gingrich by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. For the past 10 years, my work as a documentary film 
producer and author has highlighted the fundamental importance of 
liberty and democracy in American history, and in America's exceptional 
place in the world.
    In our documentary film, Nine Days that Changed the World, we 
explored the quest for freedom and democracy in an international 
context, focusing on Pope John Paul II's historic pilgrimage to Poland 
in 1979--an event that inspired the Polish people to renew their 
hearts, reclaim their courage, and free themselves from the shackles of 
Communism. Nine Days that Changed the World is frequently used in 
religious education programs throughout the United States--helping to 
instill a strong appreciation for liberty and democracy in the next 
generation.
    My Ellis the Elephant American history series for children features 
the pivotal moments that have shaped our great nation. These books also 
highlight our American values of liberty and democracy and have reached 
a wide-ranging audience.
    If confirmed, I look forward to working with the Holy See to 
support and promote human rights and democracy throughout the world.

    Question 2. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 3. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 4. Do you or do any members of your immediate family have 
any financial interests in the Holy See?
    Answer. No.

    Question 5. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I strongly believe that those who represent the United 
States abroad must represent the full beauty, strength, and diversity 
of the fabric of American society. As the State Department's Statement 
on Diversity and Equal Employment Opportunity notes, ``Our commitment 
to inclusion must be evident in the face we present to the world and in 
the decision-making processes that represent our diplomatic goals.''
    As a small business owner, I have made it a priority to build a 
strong, mutually supportive team. If confirmed, I will take the same 
approach to managing each member of the Embassy Vatican team, taking 
special care to ensure that each individual is able to draw upon his or 
her unique background and experience to contribute to the goals of our 
mission. I am fully committed to equal employment opportunity 
principles.

    Question 6. What steps will you take to ensure that each of the 
supervisors at the Embassy are fostering an environment that's diverse 
and inclusive?

    Answer. Just as I take seriously my own responsibility, if 
confirmed, to lead a diverse and inclusive mission, I am committed to 
ensuring the managers and supervisors at Embassy Vatican fully uphold 
equal employment opportunity principles and promote the success of each 
member of our embassy community. If confirmed, I will clearly and 
consistently articulate these principles as chief of mission, and I 
will ensure our embassy supervisors consistently prioritize them in 
their interactions.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to Nathan Sales by Senator Marco Rubio

    Question 1. Hezbollah remains one of the world's most deadly 
terrorist organizations and is responsible for the deaths of hundreds 
of Americans. In addition to the funding it receives from Iran, 
Hezbollah runs a sophisticated network of criminal activities to fund 
its terrorist operations in Lebanon and throughout the world, including 
in the Western Hemisphere. Do you have recommendations on how the 
United States can better confront the threat posed by Hezbollah? Do you 
agree with long-held U.S. policy that there is no distinction between 
military and civilian wings of terrorist groups like Hezbollah or 
Hamas? If confirmed, will you press our EU allies to designate all of 
Hezbollah as a terrorist organization?

    Answer. Hizballah is a U.S. designated foreign terrorist 
organization whose global terrorist operations, and illicit activity 
and military operations in Syria and elsewhere, threaten global 
security and contribute to regional instability. If confirmed, 
disrupting Hizballah's far-reaching terrorist and military capabilities 
will be one of my top priorities. I will continue engaging in a range 
of efforts to counter Hizballah, including using designations tools and 
working closely with the Departments of Treasury and Justice and other 
U.S. Government entities to improve capacity and increase awareness in 
regions where Hizballah is most active, including Eastern Europe, the 
Arabian Peninsula, Southeast Asia, Latin America, and West Africa.
    The United States does not distinguish between Hizballah's 
different wings. This approach is based on a careful review of all 
available information, which indicates that Hizballah's numerous 
branches and subsidiaries share common funding, personnel, and 
leadership, all of which support the group's violent actions.

    Question 2. Although ISIS is steadily losing territory, it will 
remain a terrorism threat for years to come. Its foreign-born fighters 
will return to their homelands, including the United States. ISIS will 
also continue to have an online presence that will allow it to inspire 
and support potential homegrown terrorists. How do you believe ISIS 
will evolve after it loses its territory in Iraq and Syria? Once ISIS 
is stateless, how should the U.S. combat the group? Where will America 
be most vulnerable?

    Answer. As ISIS continues to lose territory, the group has had 
increasing difficulty attracting foreign terrorist fighters to travel 
to Iraq and Syria. Additionally, Coalition-backed military operations 
in Iraq and Syria are being conducted simultaneously both to accelerate 
the defeat of ISIS and to ensure that foreign fighters already on the 
battlefield are unable to escape. Nevertheless, we expect the group to 
continue to rely on its global networks and branches to carry out and 
inspire attacks beyond Iraq and Syria. ISIS will likely continue to 
urge its followers to carry out attacks in their home countries, 
including the United States, rather than calling for followers to 
travel to Iraq and Syria--a message the group began to disseminate last 
year when it began to lose large swaths of territory.
    In response, the United States has made important strides to defeat 
ISIS and reduce the number of terrorist safe havens around the world. 
If confirmed, I will continue to work with partners to improve 
information sharing; increase law enforcement and judicial capacities 
to detect, deter, investigate, and prosecute terrorists and terrorist 
financing; strengthen borders; and improve our ability to counter 
terrorist narratives.

    Question 3. What do you see as the most urgent counterterrorism 
issues for the U.S. Government to address? What would be the most 
important counterterrorism issues for you as the Coordinator for 
Counterterrorism at the State Department?

    Answer. Today's terrorist landscape is more complex, multifaceted, 
and localized than ever before and we should expect ISIS to adopt new 
tactics and targets as a result of Coalition success in Iraq and Syria. 
But we must also remain vigilant against threats posed by al-Qa`ida and 
its regional affiliates as well as by Iranian-backed terrorist groups.
    Anticipating new terrorist threats by ISIS outside of Iraq and 
Syria, the CT Bureau and its interagency partners will have to ensure 
that police, border security officials, prosecutors, and other 
civilian-led entities in foreign partner countries are prepared to 
counter more attacks by battle-hardened foreign terrorist fighters and 
homegrown violent extremists operating in places like Southeast Asia, 
Western Europe, Africa, and potentially the homeland. If confirmed, I 
will employ diplomacy and targeted programmatic assistance to ensure 
that our partners have the will and capacities to address evolving 
terrorist threats, tactics, and travel.
    If confirmed, I would carefully consider and prioritize which 
efforts the CT Bureau could lead or support to address the long-term 
drivers of extremism. Specifically, I would coordinate closely with 
other departments and agencies to coordinate the Department's 
international countering violent extremism (CVE) efforts.

    Question 4. Do you believe that Iran's Islamic Revolutionary Guard 
Corps--not just the Qods Force--should be designated as a Foreign 
Terrorist Organization?

    Answer. My understanding is that the Department of State is 
committed to a whole-of-government approach that ensures appropriate 
action against the IRGC's illicit activities. The administration is 
currently reviewing its overall Iran policy. This review presents the 
U.S. Government with an opportunity to identify additional actions the 
U.S. can undertake to counter the IRGC.
    As an entity of the Iranian Government, my understanding is that 
the IRGC is currently subject to a range of restrictions and sanctions 
that derive from Iran's designation as a State Sponsor of Terrorism 
(SST). There are other restrictions and sanctions that impact the IRGC, 
to include: numerous Executive Orders that collectively block Iranian 
property and interests from the U.S. commercial and financial systems, 
and which can have secondary sanctions consequences.
    I am aware that the administration is aggressively targeting Iran's 
destabilizing activities around the world, including its support for 
terrorism, by imposing sanctions on individuals and entities related to 
the IRGC-Qods Force and Iranian proxies like Hizballah and Al-Ashtar 
Brigades, as well as individuals and entities connected to Iran's 
ballistic missile program. Additionally, the State Department has 
recently announced multiple designations and sanctions targeting people 
and entities affiliated with Iran and the IRGC.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Nathan Sales by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has been a top 
priority of mine, both during my government service and as a law 
professor; I believe that it is essential to preserve a durable balance 
between national security needs and the fundamental rights that are a 
bedrock of our democracy. For example, as a policymaker at the 
Department of Justice and the Department of Homeland Security, I worked 
to ensure that new counterterrorism initiatives included concrete and 
specific protections for privacy and civil liberties, such as judicial 
review, congressional oversight, internal audits, and similar 
safeguards. During my time as a law professor, I have sought to instill 
in my students a deep appreciation for this country's basic 
constitutional values, especially the many foreign students I have 
taught over the years. I also have promoted those values overseas, by 
teaching classes and giving to lectures to students, lawyers, and other 
audiences around the world--including in post-Communist countries like 
Georgia, Poland, Romania, and Slovakia--about the rule of law, judicial 
review, and judicial independence. If confirmed, I would bring this 
enduring commitment with me to the State Department.

    Question 2. What are the most pressing human rights issues related 
to counterterrorism? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy with respect 
to counterterrorism? What do you hope to accomplish through these 
actions?

    Answer. Respect for human rights while combating terrorism is an 
essential part of any successful and sustainable counterterrorism 
strategy. If confirmed, I will ensure that principles of democracy, 
good governance, and human rights protections for all members of 
society are embedded in the CT Bureau's policies and programs.
    An effective approach to countering violent extremism (CVE) 
requires developing an understanding of the factors that may be driving 
individuals towards radicalization and violence. The denial of human 
rights and the inability of citizens to gain redress for grievances 
peacefully are some of the factors that can feed terrorist propaganda 
that seeks to justify violence. Conversely, freedom of speech and 
freedom of religion are important components in efforts in countering 
violent extremism.
    In addition to ensuring the protection of basic human rights, it is 
also important to make sure that the criminal justice system promotes 
and adheres to the rule of law in the course of detecting, disrupting, 
and prosecuting terrorist offenders. Countries need clear legal 
frameworks that are consistently and uniformly applied to all citizens. 
Criminal justice actors, who implement the law, must conduct their work 
in an accountable and transparent manner. Oversight mechanisms must be 
in place to ensure that criminal justice actors and institutions 
operate in accordance with domestic and international laws, including 
protections for human rights.
    In recognition of the important nexus between human rights and 
counterterrorism efforts, if confirmed, I will use diplomatic and 
foreign assistance tools to continue to press for well-functioning law 
enforcement agencies that respect citizens' basic rights; I will ensure 
that human rights are integrated in criminal justice efforts; and I 
will stress the importance of using a range of stakeholders to combat 
terrorism and counter violent extremism.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response?

    Answer. Political will is critical to ensuring that 
counterterrorism measures are carried out in accordance with human 
rights standards. Should I be confirmed, I will make it a priority in 
my dealings with foreign partners to emphasize the importance of a 
strong and enduring commitment to human rights. Another potential 
obstacle may be an insufficient understanding of the critical role that 
human rights play in a sustainable and effective counterterrorism 
approach. A government that regularly transgresses broadly accepted 
human rights standards in its approach to countering terrorism could 
contribute to radicalization. Given the U.S. experience balancing 
security and strong human rights protections under law, we can assist 
governments to improve their understanding and practice on this 
essential issue. If confirmed, I intend to marshal the diplomatic 
weight and resources of allied and other like-minded countries to 
underscore that counterterrorism efforts must be carried out with 
respect for human rights and the rule of law.

    Question 4. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. U.S. Government-funded security assistance initiatives must 
reinforce essential American principles and values, including respect 
for and promotion of human rights. All beneficiaries of such assistance 
must be fully vetted per the guidelines of the Leahy amendment. If 
confirmed, I will work to ensure that the Counterterrorism Bureau fully 
complies with Leahy vetting requirements. I also will emphasize, in my 
diplomatic outreach to counterparts globally, that a commitment to 
strong human rights protections is vital to effective counterterrorism 
practice.

    Question 5 Do you commit to bring to the committee's attention (and 
the State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question 6. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise any concerns that I 
may have through appropriate channels.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms or productivity. What will you do to promote, 
mentor and support your staff that comes from backgrounds and 
underrepresented groups?

    Answer. I agree strongly that a diverse team is a stronger team. If 
confirmed, I will promote diversity across the organization and ensure 
full and equal opportunity for all individuals and voices no matter 
what their backgrounds. In so doing, I will remain committed to the 
following core principles: (1) respect for the dignity of the 
individual, (2) integrity, (3) trust, (4) credibility, (5) continuous 
improvement, and (6) robust and open lines of communication. In setting 
these expectations, I believe this will help to build a well-rounded 
organization. Ensuring access to, interaction with, and opportunity for 
employees of different backgrounds will bring their unique 
perspectives, experiences, and skills to bear on the challenges the CT 
Bureau will face, thereby improving our workforce.

    Question 8. Women have a key role to play in combatting terrorism 
and violent extremism. Unfortunately, women continue to be 
underrepresented in our security sector institutions. What do you plan 
to do to better include women in the security sector and bring in their 
ideas to more effectively counter terrorism?

    Answer. I strongly believe that women play a critical role in 
combatting terrorism and violent extremism, whether as community 
leaders, civil society members, or government officials and security 
sector practitioners. As a father of two young girls, I believe we 
cannot afford to allow women's roles in preventing and countering 
violent extremism to go untapped. Whether as observers, supporters, 
facilitators, preventers, or victims of terrorism, one thing is clear: 
we do a disservice to women, and all of society, if we disregard their 
perspectives in the analysis, research, advocacy, and partnership-
building that is so essential to the work we do every day to counter 
terrorism and violent extremism. If confirmed, I would lead the CT 
Bureau's efforts to involve women in all of these arenas, particularly 
in key frontline states with active terrorist threats.

    Question 9. How will you ensure that soft power tools are 
sufficiently funded and properly implemented within our overarching CT 
and CVE policies?

    Answer. Countering terrorist narratives, messaging, recruitment, 
and inspiration to violence are critical soft power tools for defeating 
ISIS and other terrorist groups and networks. If confirmed, I am 
committed to working internally, with the interagency, and especially 
internationally to secure support and resources to fund these tools and 
efforts.
    When I feel it is warranted, I will not hesitate to advocate for 
resources to support these tools from within our own government. I also 
plan to encourage other donor countries, host-country governments, and 
local partners to take more responsibility for leading CT and CVE 
efforts; they are best positioned to ensure sustained success. Already, 
the State Department has leveraged hundreds of millions of dollars over 
the last several years from Western European and other donors to fund 
many CVE initiatives and programming around the world. I look forward 
to continuing that work to ensure we and our partners are committed to 
these soft power tools.

    Question 10. Do you believe these tools to be important in our 
fight against terrorism?

    Answer. These tools are a critical part of U.S. counterterrorism 
efforts. CVE is a whole of government and whole of society effort. Non-
law enforcement, civilian agencies of government play a role in this 
effort--as do cities and municipalities. Women, youth, families, 
educators, social workers, religious leaders, and the private sector 
also need to be engaged in countering violent extremism. Bringing to 
bear the expertise of these diverse elements of society is critical for 
the design and implementation of CVE programming.

    Question 11. Do you agree with the administration's cuts to 
critical components of State's soft-power portfolio?

    Answer. Countering terrorist narratives, messaging, recruitment, 
and inspiration to violence is a critical part of defeating ISIS and 
other terrorist groups and networks. If confirmed, I would work 
internally at the State Department and with the interagency to secure 
support and resources to fund appropriate tools and efforts. In 
addition, my understanding is that the State Department encourages 
other donor countries, host-country governments, and local partners to 
take more responsibility for leading CT and CVE efforts; they are best 
positioned to ensure sustained success. In fact, the Department has 
leveraged hundreds of millions of dollars over the last several years 
from Western European and other donors to fund many countering violent 
extremism initiatives and programming around the world.

    Question 12. We are entering an era where our counterterrorism 
programs and activities have to be both more comprehensive and more 
flexible. The classic al-Qaeda model of centralized direction and 
financing of massive and complicated terror attacks against the West is 
largely obsolete, yielding to ISIL's decentralized, inspirational and 
entrepreneurial model. How should the U.S. adapt to meet these new 
challenges?

    Answer. Today's terrorism landscape is more complex, multi-faceted, 
and localized than ever before. I believe that the evolving terrorist 
landscape, especially given the Defeat-ISIS Coalition's military 
success in Iraq and Syria, will place a new premium on combatting 
terrorism through non-military approaches and will require that our 
partners in key areas have the will and capacities to address 
decentralized, regional terrorist threats. The State Department 
generally and the CT Bureau specifically will have an outsized role to 
play in this effort. If confirmed, I will work to improve the civilian-
led capabilities--police, border security, prosecutors, and others--of 
key partners to ensure they are able to more effectively confront new 
terrorist trends and tactics. In particular, we and our allies must be 
prepared to address threats by foreign terrorist fighters (FTFs) 
returning from Iraq and Syria as well as by homegrown violent 
extremists (HVEs). Identifying and addressing these types of 
individuals, in the wake of our Coalition's success, will require 
improved capabilities and information sharing among front-line 
partners. If confirmed, I would invest the time and resources to ensure 
the United States and its allies increasingly coordinate and develop 
non-military approaches to identifying and addressing these and other 
emerging threats.

    Question 13. What can the CT Bureau and the State Department do to 
push for those changes?

    Answer. Anticipating new terrorist threats by ISIS and other 
terrorist groups outside of Iraq and Syria, the CT Bureau, working with 
interagency partners, will have to ensure that police, border security, 
prosecutors, and other civilian-led entities in foreign partner 
countries are prepared to counter more attacks by battle-hardened 
foreign terrorist fighters and homegrown violent extremists operating 
in places like Southeast Asia, Western Europe, Africa, and potentially 
the homeland. If confirmed, I will employ diplomacy and targeted 
programmatic assistance to ensure that our partners have the will and 
capacities to address evolving terrorist threats, tactics, and travel.
    If confirmed, I would carefully consider and prioritize which 
efforts the CT Bureau could best led or support to address the long-
term drivers of extremism. Specifically, I would coordinate closely 
with other departments and agencies to coordinate the Department's 
international CVE efforts.

    Question 14. The administration is attempting to slash the 
resources for US diplomacy and foreign assistance for development 
across the board. Such actions deeply undercut any comprehensive 
strategy and effort to support and inoculate at-risk countries from 
terrorism and extremism. How should the CT Bureau and the State 
Department compensate for that?

    Answer. Secretary Tillerson has made clear that countering 
terrorist narratives, messaging, recruitment, and inspiration to 
violence is a critical part of defeating ISIS and other transnational 
terrorist networks. Protecting U.S. national security and countering 
terrorism is the administration's top priority and the CT Bureau's 
budget request reflects this. This funding is critical to sustaining 
gains from the surge of assistance in FY 2016 and FY 2017 and will 
allow the Department to continue to address the rapidly evolving 
terrorist threat. If confirmed, and if I determine that additional 
resources are needed in the future to meet our global counterterrorism 
objectives, I would not hesitate to advocate for them.



                               __________


            Response to Additional Question for the Record 
            Submitted to George Glass by Senator Marco Rubio

    Question 1. Portugal is a NATO ally and houses U.S. forces in the 
Azores. Still, NATO estimates that Portugal spent less than 1.4 percent 
of its GDP on defense, far below the NATO guideline of 2 percent. If 
confirmed, do you intend to encourage the Portuguese Government to 
increase its defense spending?
    Answer. If confirmed, I will press Portugal to meet the 2 percent 
defense spending pledge made at the 2014 Wales Summit and reaffirmed at 
Warsaw in 2016, to spend two percent of GDP on defense, with 20 percent 
of total defense expenditures on major equipment.
    I look forward to seeing Portugal's national plan later this year, 
which should articulate how Portugal will reach the Wales goals.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to George Glass by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My wife, Mary, and I have served on numerous Educational 
Boards because we both feel deeply that Education is the fundamental 
tool used to defend human rights. (K-12, University, and Medical 
School). However, there are two missions that we serve now that have 
most profoundly affected our lives. We have recently begun working with 
the Catholic Charities organization in Portland Oregon in their Refugee 
Relocation Program and the Backpack for Kids program. In the refugee 
relocation program, hearing the accounts of numerous families and what 
they've been through to finally reach our shores is gut wrenching. The 
dangers, the loss of life, and the struggles of their journeys sets 
everything in perspective regarding how we live and govern in America. 
The impact of our efforts is never enough, but we have been trying to 
help individuals learn English, obtain housing, and find jobs. In the 
backpack for kids program, what we found was in some of the lower 
income level grade schools many kids were showing up Monday morning 
literally starved from lack of food over the weekend. The school we 
work in consists of a high percentage of migrant working families and 
in the off season work for their parents is difficult to find. The 
program consists of the children picking up a backpack Friday 
afternoon's loaded with enough square meals to feed both them and their 
siblings over the weekend. (The backpack is provided so that there is 
no public stigma for the kids regarding ``getting a hand out'' of 
food). This program has gained both religious and corporate sponsorship 
and is now feeding over 70 families at this school alone.

    Question 2. What are the most pressing human rights concerns in the 
Republic of Portugal today? What are the most important steps you 
expect to take--if confirmed--to advance human rights and democracy in 
the Republic of Portugal? What do you hope to accomplish through these 
actions?

    Answer. Portugal has a strong record on human rights, but--like in 
any country--there are areas where improvements can be made. The 
biggest human rights problems in Portugal include excessive use of 
force and abuse of detainees and prisoners by police and prison guards; 
poor, unhealthy, and overcrowded prison conditions; and violence 
against women and children. Some of these issues have been brought to 
light in an ongoing case involving 18 officers of the Portuguese Public 
Security Police (PSP) and their alleged abuse of six black youths.
    Other problems include the incarceration of juveniles with adults, 
denial of legal counsel and family contact to detainees, disregard of 
detainees' rights by the Judiciary Police (PJ), lengthy pre-trial 
detention, detention of asylum seekers, some government corruption, the 
practice of female genital mutilation and cutting (FGM/C) of girls in 
the Bissau-Guinean and other African communities, societal 
discrimination and exclusion against Roma, hindrances to labor 
organizing, trafficking in persons for sexual exploitation and forced 
labor, and a growing gap between pay for men and women.
    If confirmed, I will press Portuguese authorities to work on these 
issues. I will also make clear the United States' support of human 
rights through public and private outreach. Through these actions I 
hope to improve Portugal's already-strong record on human rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Portugal in advancing human rights, civil society and democracy in 
general?

    Answer. In general, Portugal has a strong record on human rights. 
Still, management mechanisms within the justice system need to be 
improved and cultural norms are largely to blame for ongoing violence 
against women and children. Portugal has a good record investigating 
and prosecuting these crimes but, if confirmed, I will work with my 
Portuguese contacts to improve their work in this area.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Republic of Portugal?

    Answer. Yes, if confirmed, I am committed to meeting with all of 
these organizations and, if confirmed, I will continue Mission 
Portugal's close work with these groups. I will also ensure that 
Mission Portugal continues to support the Leahy Law and other 
provisions by maintaining stringent vetting standards and closely 
monitoring all security assistance and cooperation activities.

    Question 5. Will you engage with Portuguese Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes, if confirmed, I will look to continue and expand 
Mission Portugal's proactive interactions with the full spectrum of 
government officials and NGOs dealing with human rights, civil rights 
and governance.

    Question 6. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question 7. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question 8. Do you or do any members of your immediate family have 
any financial interests in the Republic of Portugal?

    Answer. No. Neither I nor any members of my immediate family have 
any financial interests in the Republic of Portugal.


    Question 9. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. If confirmed, I would foster an open environment by 
encouraging hiring from diverse backgrounds. Enable individuals to 
connect with affinity groups at State to share experience and 
opportunities. Encourage officers with diverse backgrounds to take 
greater leadership roles within the community.


    Question 10. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that's diverse 
and inclusive?

    Answer. If confirmed, some steps that I would I would take to 
ensure that each of the supervisors at the Embassy are fostering an 
environment that's diverse and inclusive include encouraging 
supervisors to enroll in diversity training and being aware of and 
addressing unconscious bias in the workplace.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to George Glass by Senator Edward J. Markey

    Question 1. For decades the United States has maintained an air 
force base at Lajes Field in Portugal's Azores Islands as a strategic 
refueling point in the mid-Atlantic. The base's location and extensive 
infrastructure have been essential to the movement of U.S. forces to 
and from Europe and the Middle East.
    This capability remains strategically critical today, but over the 
past several years the Department of Defense has sharply reduced the 
U.S. operations at Lajes. Today there are only about 160 Americans 
there. Portuguese Government officials have said they want the U.S. 
presence to remain. However, Portuguese officials have said that if the 
Pentagon does not continue to use the facilities they could be opened 
to American, European, or Chinese institutes for scientific research.
    Last year Portugal's Prime Minister said that the Azores are ``very 
important both logistically in the Atlantic Ocean but also in terms of 
technology and research, in the field of climate change and deep water 
research.''
    The United States has a historic opportunity to capitalize both 
militarily and economically on a facility that we built in one of the 
most strategically important locations on earth. A U.S. withdrawal 
could open new opportunities for China to gain a political, economic, 
and security foothold in the Atlantic.

   If confirmed, what will you do to work with the Government of 
        Portugal to ensure that the United States does not lose the 
        opportunity to make full military and civilian use of the 
        facilities we have built in the Azores?

    Answer. If confirmed, I intend to make this issue a priority as I 
believe it is in dire need of attention. While the United States Air 
Force Europe (USAFE) streamlined its presence at Lajes Field, the 
United States remains there. USAFE currently has 165 Americans and 417 
Portuguese working at Lajes Field, for a total of 582 personnel.
    We remain committed to our strategic relationship with Portugal, 
which is far broader and deeper than our presence at Lajes Field. We 
are proud of the increased bilateral military engagement and training 
in recent years, and we support initiatives to continue this positive 
trajectory. We appreciate Portugal's contribution to transatlantic and 
global security.
    We will continue to work with the Department of Defense to ensure 
an open and transparent dialogue with our Portuguese partners in order 
to assist Portugal in addressing economic and political challenges 
caused by the downsizing.

    Question 2. In an effort to cut costs, the Trump administration has 
indicated an interest in examining small diplomatic and consular posts 
with a view to possibly consolidating or eliminating some of them.

   What will be the impact of this process on the U.S. Consulate in 
        Ponta Delgada?

    Answer. I understand that State Department staffing and resources 
are under review.  If confirmed, I would make the best use of the 
resources and staffing provided to Mission Portugal in order to serve 
the American people and the interests of the United States.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Carl Risch by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. My most important actions to promote human rights and 
democracy would be my participation in six refugee processing circuit 
rides in four different countries as an officer with U.S. Citizenship 
and Immigration Services (USCIS). In this capacity, I conducted 
hundreds of interviews of refugees being resettled to the United 
States. As part of this process, I recorded hundreds of instances of 
human rights abuses, persecution, and torture on account of race, 
religion, nationality, political opinion, and membership in a 
particular social group. The impact of these actions was the permanent 
resettlement of victims of persecution to the United States, where they 
could start new lives and contribute to our nation.
    In addition to my refugee work, I have promoted democracy through 
my cooperation with the U.S. military to naturalize hundreds of active 
duty service members, and their spouses, during their service overseas. 
Working with the military, we provided new citizens with information on 
voting, travel, and other rights and obligations associated with being 
citizens of the United States.

    Question 2. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 3. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 4. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What is your plan to ensure that the 
workforce in your Bureau, at all levels, is diverse, and how do you 
plan to ensure supervisors and managers are equipped to manage their 
teams effectively?

    Answer. The Department of State's Statement on Diversity and Equal 
Employment Opportunity underscores that our workforce must reflect the 
rich composition of our citizenry. ``The skills, knowledge, 
perspectives, ideas, and experiences of all its employees contribute to 
the vitality and success of the global mission,'' it continues. I agree 
that diversity improves businesses and teams in many ways, and, if 
confirmed, I intend to ensure that the Bureau of Consular Affairs (CA) 
continues and enhances its current focus on the importance of diversity 
and inclusion in our workforce.
    In accordance with the Department's Diversity and Inclusion 
Strategic plan, CA's Executive Office (CA/EX) has taken steps to 
promote diversity, not only in recruiting and hiring qualified 
candidates from a multitude of backgrounds, but also in providing 
opportunities for career advancement for all employees. Further, CA's 
Bureau Training Team held a training session on diversity and inclusion 
in partnership with the senior leadership of the Office of Civil Rights 
in January of this year.
    With regards to hiring, Human Resource Specialists and all hiring 
managers in the Bureau currently are required to complete training on 
federal hiring procedures such as the Merit System Principles (MSP) and 
Prohibited Personnel Practices (PPP), ensuring that CA adheres to 
federal regulations in promoting diversity among prospective 
candidates. The Bureau has utilized special hiring programs such as 
Veterans' Recruitment Appointment (VRA), Schedule A appointments, and 
the Pathways Programs to recruit and retain employees from a diverse 
array of backgrounds. Currently, CA's workforce is 55 percent female, 
61 percent white, 22 percent African American, 10 percent Hispanic, 6 
percent Asian, and 10 percent have a disclosed disability, making the 
Bureau one of the most diverse bureaus in the Department. In addition, 
CA prides itself on its regional diversity, a benefit of having 
passport agencies and visa and passport centers across the country.
    CA aims to promote diversity in supervisory and managerial 
positions through offering professional development opportunities and 
training to all levels of its bureaucracy. The Bureau accomplishes this 
not only through the Department's Foreign Service Institute, but also 
through its own Training Team located in the Human Resources Division, 
working directly with employees and leadership to address the Bureau's 
unique challenges with creative training solutions. By offering a 
multitude of learning and development opportunities across the Bureau, 
CA strives to offer career advancement for all CA employees and 
encourage diversity in senior-level positions. Furthermore, CA actively 
pursues diversity and sensitivity training for its current supervisors 
and managers, primarily through its Consular Managers Human Resources 
Workshop which highlights inclusion, sensitivity training, and 
promoting the benefits of diversity in the workplace.

    Question 5. The federal workforce has made progress in hiring 
diverse professionals in most agencies. There is, however, work that 
remains to be done in order to cultivate work environments where all 
employees feel valued and included. What plans do you have to ensure 
your Bureau leverages the diversity of its employees and develops an 
inclusive work environment?

    Answer. The Bureau of Consular Affairs (CA) recognizes, and I 
personally firmly believe in, the benefits of a diverse and inclusive 
workforce. If confirmed, I will build upon the groundwork already laid 
to enhance and further leverage the diversity and inclusive work 
environment of the entire Bureau.
    In line with the Department's Diversity and Inclusion Strategic 
Plan, CA has taken tangible steps to promote diversity in both hiring 
and learning and development. In addition to hiring a diverse 
workforce, CA's Bureau Training Team works to highlight the benefits of 
workplace diversity through various learning and development 
opportunities. This includes providing hiring managers training on the 
Merit System Principles and Prohibited Personnel Practices, 
coordinating diversity and inclusion training opportunities with the 
Department's Office of Civil Rights, and providing supervisors with 
ample training on proper management, workplace sensitivity, and 
promoting inclusion in their offices. In addition, employees are 
encouraged, and in some cases mandated, to take Foreign Service 
Institute (FSI) courses that foster diversity and inclusion. For 
example, FSI offers trainings to help managers identify the 
commonalities and differences across generations that in turn promote 
creativity and differing ideas within the Department.
    CA has created Leadership and Management Tenets that set forth 
clear expectations to guide all aspects of our work and in the way we 
interact with our colleagues. CA strives to ensure all consular 
supervisors hold themselves accountable for modeling these tenets and 
consular professionals at all levels are encouraged to cultivate the 
qualities embodied in these tenets and integrate them into their 
approach to work.

    Question 6. Members of the Foreign Service who are Lesbian, Gay, 
Bisexual, Transgender, Queer or Questioning, and Intersex (LGBTQI) do 
not receive the same equal treatment as their fellows Foreign Service 
personnel when they are assigned to countries that do not recognize 
same-sex marriage. The spouses and partners of these FSOs are unable to 
attain spousal Visas, even though the State Department provides full 
benefits to the diplomats coming to the United States from these 
countries. If you are confirmed, will you commit to producing a report 
on countries not issuing visas to the spouses or partners of all 
Foreign Service personnel posted overseas due to their sexual 
orientation? Additionally, will you work to find a solution to this 
problem, including eliminating visa reciprocity with countries found to 
be instituting these practices against the spouses of Foreign Service 
personnel in order to ensure that all spouses of Foreign Service 
personnel receive visas for the country to which their spouse is 
assigned, regardless of sexual orientation?

    Answer. As Secretary Tillerson said in a statement recognizing 
LGBTQI Pride Month, ``Dignity and equality for all persons are among 
our founding constitutional principles, and these principles continue 
to drive U.S. diplomacy.'' If confirmed, I will work to continue the 
push for dignity and equality for all persons, including our LGBTQI 
Foreign Service personnel who face reciprocity issues with host nations 
as we deploy our personnel around the globe. I will work with the 
Department's Bureau of Human Resources--the leader on LGBTQI 
accreditation issues--Congress, social groups, and the LGBTQI community 
of Foreign Service personnel to seek ways to ensure their rights are 
respected.
    As a matter of current practice, the Department seeks to accredit 
same-sex domestic partners from countries that reciprocally accredit 
U.S. same-sex domestic partners. If confirmed, I will ensure the 
Department continues to keep reciprocity at the center of its response 
to this important issue for the Foreign Service community.

    Question 7. Will you commit to ensuring that the core operations 
and functions of the Bureau of Consular Affairs, particularly the visa-
issuing functions, remain with the State Department and the Bureau, and 
will not be transferred to another department or agency?

    Answer. I do not support moving the core operations and functions 
of the Bureau of Consular Affairs (CA), out of the State Department. As 
the Secretary has noted, CA is vitally important to our mission at the 
Department of State, and consular work is essential to the Department's 
mission highest priority--to secure our borders and protect the 
American people.
    The Department's unique experience and skills in dealing with 
foreign governments, cultures, and languages add a critical layer to 
our border security. Decisions on passport and visa operations can have 
profound implications for foreign and economic policy in addition to 
security. By having a seat at the table on border security issues, the 
Secretary of State can ensure all equities are presented for the 
President's consideration. The Department's cadre of language qualified 
Foreign Service Officers, Consular Fellows, Civil Servants, and Local 
Employees bring broad knowledge of regional and local cultures to visa 
and passport decisions. It would be costly, time-consuming, and 
duplicative to develop a separate corps in another department or agency 
to do this work when State is already proficient in this field. 
Transfer of these functions would also weaken the Secretary's ability 
to fulfill the responsibility for the security of U.S. citizens abroad.
    U.S. border security depends on a system of ``layered defense'' for 
maximum effectiveness, and the current system of vetting and 
adjudicating visas has built-in checks and balances that strengthen our 
national security. DHS sets visa policy, CA vets applicants' biometric 
and biographic data against U.S. law enforcement and intelligence 
community databases, and Consular officers review the vetting results 
and use their expertise to interview applicants and determine their 
eligibility for a visa, seeking input from CA, as appropriate. For 
example, when a visa applicant raises potential security concerns, 
consular officers are required to request Security Advisory Opinions. 
That process involves a hands-on review by a Visa Office analyst, after 
the analyst has collected input from relevant interagency partners and 
other components of the State Department, as appropriate. When an 
application raises legal questions or questions about the appropriate 
visa classification, the adjudicating consular officer may reach back 
to a team of lawyers in the Visa Office who are dedicated to addressing 
those questions. When fraud is suspected, in addition to fraud 
prevention expertise and tools available at the overseas post, consular 
officers may reach back to CA's Office of Fraud Prevention Programs 
analysts and subject matter experts to assist with complex or 
multinational fraud cases.
    If the intending traveler is found eligible and issued a visa, DHS 
then vets inbound passengers before they board flights, and at U.S. 
ports of entry. Visa and passport data is widely shared with law 
enforcement and intelligence agencies, and all visas are subject to 
continuous interagency vetting, which can lead to the Visa Office 
revoking the visa at any time, if information arises after issuance 
suggesting the visa holder may no longer eligible for the visa. This 
layering and sharing of responsibilities ensures complete and careful 
attention to security, foreign policy, economic and other dimensions of 
visa-issuance decisions.



                               __________


      Responses to Additional Questions for the Record Submitted 
              to Krishna Urs by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of 31 years in the Foreign Service, I have 
worked to promote human rights in many different contexts and 
countries. At one point in my career, I advocated for and prepared a 
statement issued by the Department of State calling for an end to 
spiraling political violence involving security forces and a specific 
political party in one country. In several countries, I worked with 
national and local governments to establish safe houses for victims of 
human trafficking and to step up awareness campaigns about trafficking 
in persons. At my urging, the U.S. Government ended all assistance to a 
national police force in one country in which I served due to our 
concerns about the use of extrajudicial killings as a crime prevention 
tactic. In several countries, I advocated public statements by the 
Embassy to highlight areas of eroding respect by foreign governments of 
democratic institutions and norms.
    My actions in support of human rights over the course of my career 
produced concrete results. To provide just a few examples--our 
statement decrying spiraling political violence involving security 
forces resulted (at least temporarily) in fewer exchanges of gunfire 
involving the police. After we cut off assistance to the police in 
another country, the Government replaced the police chief (who had been 
linked to human rights abuses) with another official publicly committed 
to protecting human rights. Our statements in support of democracy 
served as encouragement to like-minded allies in the local society, 
helping to protect institutions and norms.

    Question 2. What are the most pressing human rights concerns in the 
Republic of Peru today? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in the 
Republic of Peru? What do you hope to accomplish through these actions?

    Answer. Our close relationship with Peru is built on shared 
interests and values, including the importance of human rights. Peru 
has made significant strides in support of human rights since the end 
of its 20 year internal conflict in 2000. Human rights challenges, 
however, persist in the areas of violence against women and children, 
trafficking in persons, and discrimination against Afro-Peruvians, 
Indigenous persons, and Lesbian, Gay, Bisexual, Transgender, and 
Intersex (LGBTI) persons. Corruption enables an environment allowing 
these and other human rights challenges to exist.
    If confirmed, I will use all the tools at my disposal to assist 
Peru in addressing its human rights challenges.
    By working together to promote human rights, social inclusion, and 
poverty reduction, we can achieve a more prosperous, inclusive, and 
democratic future for Peru.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Peru in advancing human rights, civil society and democracy in general?

    Answer. The Peruvian Government has shown a commitment to address 
many human rights challenges. If confirmed, I will encourage the 
Peruvian Government to continue its efforts to improve social inclusion 
and respect for human rights, seek opportunities for public-private 
partnerships toward this end, and cooperate with non-governmental 
organizations to multiply the effect of our assistance.
    I will work with Peru's Government to combat corruption, which can 
exacerbate social conflict, enable human rights abuses, and undermine 
confidence in government institutions.
    If confirmed, one of the challenges I will face will be to help the 
Peruvian Government and civil society find new ways to include the 
country's historically marginalized communities in Peru's economic 
success story.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Republic of Peru?

    Answer. Yes. Developing strong relationships with human rights 
advocates, civil society, and non-governmental organizations is one of 
the cornerstones of our partnership with the Peruvian people. If 
confirmed, I will continue the United States' longstanding practice of 
closely engaging Peruvian civil society to ensure I am fully attuned to 
Peru's human rights landscape. I will work closely with the Peruvian 
Government, civil society, and all relevant agencies of the U.S. 
Government to ensure every dollar of U.S. assistance is used wisely and 
in accordance with our human rights goals and the Leahy Law.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. As a U.S. Government employee with 31 years standing, I am 
firmly committed to implementing all relevant U.S. laws and 
regulations, including the Leahy law, when fulfilling my duties. If 
confirmed, I will work to ensure no assistance is provided to foreign 
security force units where the Department has credible information that 
such units engaged in gross violations of human rights, in accordance 
with the Leahy law. I will also work to ensure the U.S. Mission in Peru 
works with the Government of Peru to help them take effective steps to 
bring those responsible for any violations of human rights to justice.

    Question 6. Will you engage with Peruvian Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. If confirmed, I will engage the Peruvian Government 
and civil society on human rights, civil rights, and democratic 
governance. Peru has a critical role to play in encouraging regional 
stability and is an important partner of the United States.
    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Republic of Peru?

    Answer. No. Neither I, nor any members of my immediate family, have 
financial interests in the Republic of Peru.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am a strong believer in the value of diverse teams in 
identifying, analyzing, and addressing issues and problems. Diversity 
helps prevent ``groupthink,'' ensuring that issues get a thorough 
examination from all possible perspectives and making sure that all 
viable options are explored. If confirmed, I can assure you that I will 
take diversity into consideration in filling high level positions at 
the U.S. Mission in Lima, as I have done in past assignments. I am 
committed to mentoring for all staff members, but especially for those 
from diverse backgrounds and under-represented groups.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will work with each member of my country 
team to ensure they are giving proper consideration to assembling a 
diverse and representative team. I will also ensure country team 
members understand their responsibility to provide mentoring and 
guidance to mid-level and junior members of their teams, with specific 
emphasis on diverse and under-represented groups.

    Question 12. Earlier this year, Peru issued a new decree to 
establish a payment process to service longstanding debt related to 
agrarian reform bonds. Numerous U.S. firms and citizens hold an 
interest in these bonds, including several Maryland pension plans. If 
confirmed as the next U.S. Ambassador to Peru, will you commit to 
working with the Peruvian Government to achieve a final resolution of 
this issue? Will you work with the U.S. Securities and Exchange 
Commission and the Department of the Treasury to ensure that they have 
accurate information about the amount owed on the bonds?

    Answer. If confirmed as the next U.S. Ambassador to Peru, I look 
forward to learning the details of this complicated case. I fully 
commit to engaging with the Government of Peru to press for a fair and 
timely resolution of these complex issues. I understand the independent 
regulator with jurisdiction over Peru's U.S. law bonds, the Securities 
and Exchange Commission, has been asked for views on this case, and I 
will follow up. I will also engage Treasury for its views on the 
appropriate treatment of these particular domestic obligations in 
national economic statistics. I understand there is considerable debate 
on the appropriate valuation of these securities, the resolution of 
which could impact on the value of other U.S. investors' holdings of 
Peru's domestic and international debts, and I will press for a speedy 
resolution of the related methodological issues.



                               __________





                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding] and Menendez.

             OPENING STATEMENT OF HON. MARCO RUBIO,
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you all for being here. My apologies. 
We were at a meeting at the White House.
    This meeting on the Subcommittee on the Western Hemisphere 
will come to order.
    Again, I apologize to our nominees. We were at the White 
House. It took a few minutes to get here and my apologies to 
the ranking member.
    With that, I am going to defer my opening statement in the 
interest of your time and that of the ranking member and just 
defer to him, if he has an opening statement.

               STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, Mr. Chairman, in the interest of 
time, I am going to keep it really brief compared to what I 
normally would do, not that it is long, but I am going to keep 
this one really brief.
    I will just say that, as we often do on this committee, 
despite our presence, we overlook the western hemisphere. But 
on migration, trade, and national security what happens in our 
own hemisphere impacts us here in the United States most 
directly. So it is critical that we have capable, experienced 
professionals representing the United States in our embassies 
in the hemisphere. So to our career nominees, we salute your 
service and we welcome your insight, and, Ms. Day, we look 
forward to hearing from you as well.
    And I will defer the rest, Mr. Chairman.
    Senator Rubio. Thank you to the ranking member. And again, 
my apologies for it. I hate being late.
    With that, let me introduce the nominees. I will introduce 
you for your opening statements, and then we can go into 
questions.
    Obviously, we have one panel testifying today: the 
Honorable Luis Arreaga of Virginia to be the Ambassador to 
Guatemala; Ms. Sharon Day of Florida to be the Ambassador to 
Costa Rica; and Mr. Krishna Urs to be the Ambassador to Peru. 
They all have impressive resumes.
    Mr. Arreaga was appointed Principal Deputy Assistant 
Secretary of State for the Bureau of International Narcotics 
and Law Enforcement in January 2016. He is responsible for the 
State Department's programs combating illicit drugs and 
organized crime.
    Ms. Day is someone I know personally and known for a 
significant period of time. She is a dedicated person. She is a 
hard worker. She is a friend and someone that under different 
circumstances I would be at the table presenting her, but we 
are up here. So I am presenting you now. I am happy you are 
here today. I am encouraged that the President nominated you, 
and I know, if confirmed, you will represent our country well 
in Costa Rica.
    Krishna Urs has served the Department of State and the 
American people for more than 31 years, and that includes posts 
in the Dominican Republic, Bolivia, Nicaragua, and Mexico. He 
has served as the Director of the Office of Economic Policy in 
the Bureau of Western Hemisphere affairs, and given his wealth 
of experience in the region, we are encouraged today to hear 
from him about his views on how to lead this embassy.
    We thank you all for being here today. And we will begin 
with Ambassador Arreaga. Thank you.

STATEMENT OF HON. LUIS E. ARREAGA, OF VIRGINIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF GUATEMALA

    Ambassador Arreaga. Thank you very much, Mr. Chairman, 
Ranking Member Menendez. I am honored to appear before you as 
President Trump's nominee to serve as United States Ambassador 
to Guatemala.
    If you allow me to indulge a bit, I would like to 
acknowledge my wife Mary, to whom I owe everything, and my 
beloved family who are here with me today back here somewhere.
    If confirmed by the Senate, I will work with the Congress 
and our Guatemalan partners to meet the commitments made by 
President Jimmy Morales and Vice President Pence in mid-June 
when they met in Miami.
    Our common agenda has three pillars: prosperity, 
governance, and security. Of particular note will be an 
emphasis on fighting corruption, narcotrafficking, gangs, 
trafficking in persons, and strengthening the rule of law. If 
confirmed, I will also work to create conditions to attract 
investment and to protect human rights, labor rights, and 
advance health, nutrition, and education, especially in the 
western highlands of Guatemala.
    Ultimately, however, my duty will be first and foremost to 
the American people.
    I thank you for the privilege of appearing today and 
welcome your questions.
    [Ambassador Arreaga's prepared station follows:]


                   Prepared Statement of Luis Arreaga

    Mr. Chairman, members of the committee, I am honored to appear 
before you as President Trump's nominee to serve as the United States 
Ambassador to the Republic of Guatemala. I am deeply grateful for the 
trust the President and Secretary Tillerson have placed in me. If 
confirmed by the Senate, I will work with the Congress to advance our 
interests in Guatemala.
    If you allow me to indulge, I am an immigrant born to a migrant 
worker and an elementary public school teacher whose sacrifice and 
teachings inspired me to come to this great nation and earn the 
privilege of becoming one of its adopted citizens. I have many people 
to thank for this moment and I cannot name them all. I do want, 
however, to single out my beloved family, for they have been a source 
of inspiration and indispensable support. Foremost is my wife Mary, to 
whom I owe everything. My children are here to share this special 
moment. They include my daughter Melania, who is also a Foreign Service 
Officer, my son-in-law Vince, grandchildren Elena and Sebastian, and my 
sons Juan Carlos and Luis.
    I previously had the privilege of serving as the U.S. Ambassador to 
the Republic of Iceland, so I understand what is required to represent 
the United States abroad. I have served in Latin America, Europe, and 
Canada as an economist and diplomat and have great respect for the 
importance of working with strong U.S. allies to protect our nation and 
the American people.
    The United States and Guatemala have strong relations. These are 
rooted in common interests and people-to-people connections that go 
back generations. We work closely with our Guatemalan partners to 
promote prosperity, good governance, and security all of which are in 
the interest of our country.
    Our engagement is at the highest levels. Vice President Pence, 
Secretary Tillerson, and Secretary Kelly met with Guatemalan President 
Jimmy Morales and his team in Miami at the Conference on Prosperity and 
Security in Central America. At that meeting, we pledged to work 
together to promote investment and facilitate sustainable growth, and 
to combat corruption, narcotics trafficking, gangs, and transnational 
criminal organizations, all of which undermine stability there, 
threaten our country, and drive fleeing migrants to the United States.
    If confirmed, I will work tirelessly with our partners in Guatemala 
to comply with these commitments. I look forward to expanding our 
programs on information sharing and capacity building that strengthen 
border security, dismantle criminal networks, and stem the tide of 
violence affecting the region. A safer and more secure Guatemala will 
have a positive effect on communities in both of our countries. Our 
work will also include programming that strengthens the rule of law, 
transparency, accountability, and especially the protection of human 
rights.
    Security cooperation is just one part of our joint strategy. If 
confirmed, I will also strive to foster sustainable economic growth in 
Guatemala. By supporting efforts to facilitate trade, promote 
education, and minimize red tape, we can improve the business climate, 
spark investment, and help to reduce unemployment. We'll continue our 
emphasis on the Western Highlands, where most of the migrants 
originate. We seek to create opportunities that benefit both 
Guatemalans and U.S. businesses looking to engage in the region.
    Underlying all these efforts is a commitment by both governments to 
fight corruption and build upon the successful efforts by President 
Morales, CICIG, and the Attorney General to end impunity.
    Let me conclude, by reiterating that, if confirmed, my duty would 
be, first and foremost, to the American people. There is much to be 
gained through cooperation with Guatemala as our safety and security 
are inextricably linked. In this role, I will be vigilant in protecting 
the interests of American citizens, both abroad and at home.
    I thank you for the privilege of appearing today and welcome your 
questions.


    Senator Rubio. We thank you.
    Ms. Day, welcome and it is great to see you here.

     STATEMENT OF SHARON DAY, OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
             AMERICA TO THE REPUBLIC OF COSTA RICA

    Ms. Day. Senator Rubio and Senator Menendez, it is my honor 
to appear before you today as President Trump's nominee to 
represent the United States as Ambassador to the Republic of 
Costa Rica.
    I am humbled by both President Trump and Secretary of State 
Tillerson's trust, and I am mindful of the responsibilities 
that are being asked of me to share our country's principles of 
freedom and democracy and to protect our mission family and all 
Americans in country.
    I want to thank my loved ones, my family and friends, for 
their love, support, and guidance and especially for all their 
encouragement on this journey. I have been blessed to witness 
firsthand Costa Rica's natural beauty and her biodiversity, its 
rich culture and the kindness of its people.
    The United States and Costa Rica share a long and close 
relationship that centers on both our countries' commitments to 
democratic principles, strong commercial ties, and the 
relationship between our people. The strong bilateral 
relationship between our two countries is strengthened by our 
longstanding and meaningful ties, which are something I have 
witnessed firsthand in my home State of Florida.
    If confirmed, I look forward to working with our 
professional embassy team and to continue to build on the long 
history of bilateral cooperation on regional and global issues.
    Thank you for your time and your consideration, and I look 
forward to your questions.
    [Ms. Day's prepared statement follows:]


                    Prepared Statement of Sharon Day

    Chairman Rubio, Ranking Member Menendez, and members of the 
committee, It is my honor to appear before you today as President 
Trump's nominee to represent the United States as Ambassador to the 
Republic of Costa Rica. I am humbled by the President's trust and I am 
also very mindful of the responsibilities that are being asked of me--
to both share our country's principles of freedom and democracy, and 
protect our Costa Rica Mission family and all Americans in country. I 
want to emphasize that, if confirmed as U.S. Ambassador to Costa Rica; 
my duty would be, first and foremost, to the American people.
    I want to thank my loved ones and my family--my mother, Mary 
Swartz, my son, Coby, his wife Stephanie, my beautiful grand babies 
Aidan, Tristan, and Maci, my sisters and brothers, and my stepson Aaron 
Day and his family. I also want to thank my friends who have helped 
guide me on my journeys and successes. And to my late husband, Larry, 
thank you for always encouraging and believing that all things were 
possible for me. Our loved ones pay the biggest price for our passion 
of serving, and I will always be thankful for their love and support.
    I sit before you today mindful and appreciative of the journey my 
life has taken. I am thankful for the opportunities and the 
understanding that in our country anything is possible. I grew up in 
San Antonio, Texas in a middle class family--my dad was an electrician 
and my mom was a stay at home Mom. We weren't rich with money, but I 
was rich by the principles that I was taught--that hard work matters--
that honesty matters--that lying about a misdeed was worse than the 
deed itself--to have respect for every individual, in fact, even today 
I say ``sir'' or ``ma'am'' to everyone I meet in person or that I may 
come in contact with--it was instilled in me that you can do anything 
you put your mind to--and no dream was too big if you had an education. 
My home was also where I learned you can have very divergent beliefs--
very different political philosophies--and you can also sometimes have 
loud discussions while still being united in ways that really matter 
and count because you see, as I mentioned my dad was a union 
electrician and also a Democrat while my mom was a Republican.
    I thank you for the opportunity to share the principles that have 
been instilled in my life. I could have never imagined or dreamed that 
I would be sitting before you today as the nominee for United States 
Ambassador to the Republic of Costa Rica.
    I have travelled to Costa Rica and witnessed firsthand its world-
renowned natural beauty and biodiversity, its rich cultural and 
historical attractions, and the kindness of its people. The United 
States and Costa Rica share a long and close relationship that centers 
on our commitment to democratic principles, strong commercial ties, and 
the relationships between our people. The strong bi-lateral 
relationship between our two countries is strengthened by our 
longstanding and meaningful people-to-people ties which is something I 
have witnessed firsthand in my home state of Florida. Costa Rica is a 
key tourist destination for my fellow Americans with over a million 
visitors annually and the number one destination for U.S. students 
studying abroad in Latin America. If confirmed, I look forward to 
continuing to build on our long history of bilateral cooperation, as 
well as cooperation on regional and global issues.
    The administration is engaging with Costa Rica at the highest 
levels. In March, Vice President Mike Pence welcomed President Luis 
Guillermo Solis to the White House. In June, Secretary of State Rex 
Tillerson met with his counterpart, Foreign Minister Manuel Gonzalez 
Sanz, at the Conference on Prosperity and Security in Central America 
in Miami.
    This early engagement is emblematic of the close and cooperative 
relationship the U.S. Embassy in San Jose has established with 
President Solis and his administration. If confirmed, I would promote 
U.S. policy in three priority areas:

 1. Working with Costa Rica to ensure U.S. citizen visitors and 
        residents are safe;
 2. Improving the capacity of the Costa Rican Government to disrupt the 
        northward flow of illicit drugs and illegal migrants through 
        Costa Rica to the United States; and
 3. Supporting Costa Rica's efforts to strengthen its economy and 
        improve its business climate, which will provide greater 
        opportunities for U.S. companies.

    If confirmed, I will work with our Costa Rican partners to help the 
country disrupt trafficking and smuggling operations of people and 
goods in order to ensure that organized crime does not destabilize the 
country's democratic institutions. Costa Rica has already proven to be 
an excellent, willing partner with the United States in these efforts. 
A safe and secure Costa Rica is beneficial for both the U.S. citizens 
who visit this beautiful country, and for those who call Costa Rica 
home.
    Additionally, if confirmed, I would focus on expanding and 
deepening the economic ties between our nations. Improving the Costa 
Rican business climate would give U.S. businesses greater export and 
investment opportunities.
    We talk of the American dream. Today I am the embodiment of the 
American dream. The principles and values that my parents instilled in 
me are the ideals that make America great and it is these beliefs that 
will serve me well in the important role for which I am asking your 
consideration and support--the U.S. Ambassador to the Republic of Costa 
Rica.
    Thank you for your time and consideration, and I look forward to 
your questions.


    Senator Rubio. Thank you.
    Mr. Urs?

STATEMENT OF KRISHNA R. URS, OF CONNECTICUT, A CAREER MEMBER OF 
 THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSEL, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF PERU

    Mr. Urs. Thank you, Chairman Rubio, Ranking Member 
Menendez. It is a great honor to appear before you today as 
President Trump's nominee to be the U.S. Ambassador to the 
Republic of Peru.
    I am very pleased also to have family members with me: my 
wife, Denise, who is also everything to me, and my son David. 
Unfortunately, my daughter Katie could not be here today.
    The Republic of Peru is a steadfast partner in a sometimes 
turbulent region. Successive Peruvian administrations have 
pursued market-based economic and trade policies yielding 2 
decades of robust, inclusive growth. As Peru's economy has 
boomed, the country has taken a more active role 
internationally, leading efforts to resolve Venezuela's current 
crisis and agreeing to host the Summit of the Americas in April 
2018.
    But some significant challenges remain. Transnational 
organized crime, persistent rural poverty, weak institutions, 
environmental degradation, and endemic corruption threaten the 
country's progress.
    In President Kuczynski and his government, we have a strong 
partner. U.S. Government programs in the country advance U.S. 
priorities by supporting Peru's efforts to combat transnational 
criminal networks, address remaining pockets of poverty, and 
halt environmental degradation.
    Mr. Chairman, for many of the 31 years that I have been in 
the Foreign Service, I have been fortunate to work on western 
hemisphere issues. If confirmed, I look forward to working with 
our truly extraordinary U.S. mission team in Peru to advance 
our interests, ensure the safety and welfare of all Americans 
and U.S. Government employees, and to further strengthen 
bilateral relations. I look forward to working with the 
committee in the furtherance of these goals.
    I am happy to answer any questions now or in the future.
    [Mr. Urs's prepared statement follows:]


                  Prepared Statement of Krishna R. Urs

    Mr. Chairman and members of the committee: It is an honor to appear 
before you today as President Trump's nominee to be the U.S. Ambassador 
to the Republic of Peru. If confirmed, I will work closely with this 
committee and other interested Members of Congress to advance U.S. 
interests and values in Peru and to help the Peruvian people move 
towards a prosperous, inclusive, and democratic future.
    Accompanying me here today is my wife Denise, who is also a senior 
Foreign Service Officer, and my children, Katie and David, who have 
come from Oklahoma and Madrid respectively.
    The Republic of Peru, with a population of more than 30 million, is 
one of the United States' most steadfast partners in a sometimes 
turbulent region. Successive Peruvian administrations, including both 
center-right and center-left governments, have pursued market-based 
economic policies yielding two decades of robust and inclusive economic 
growth. Peru has cut poverty rates in half, reduced infant mortality, 
and expanded access to education.
    Peru has staked its future on expanding international trade and the 
U.S.-Peru Trade Promotion Agreement spurred an increase in bilateral 
trade from some $9 billion in 2009 to more than $14 billion in 2016. 
The United States enjoys a cumulative surplus of more than $18 billion. 
As Peru's economy has boomed, it has taken a more active role in the 
region and the world. The Government of Peru has been a leader in 
efforts to find a solution to the crisis in Venezuela. Peru hosted the 
APEC Economic Leaders Meeting in 2016, and it will host the Summit of 
the Americas in April 2018.
    But even as Peru has emerged as a regional leader and staunch 
partner, it still faces challenges. Transnational organized crime, 
persistent rural poverty, weak institutions, and endemic corruption 
threaten the country's progress. Peru remains among the world's largest 
coca and cocaine producing countries. Environmental degradation 
associated with illegal drug production, logging, and mining is a 
serious concern.
    The United States is committed to partnering with Peru to address 
threats to our common security. In President Kuczynski and his 
government, we have a strong partner. U.S. Government programs in the 
country advance U.S. priorities by supporting Peru's efforts to combat 
transnational criminal networks. We also support Peruvian Government 
efforts to overcome persistent rural poverty and improve the livelihood 
of marginalized populations.
    Mr. Chairman, for much of my 31 years in the Foreign Service, I 
have been fortunate to work on Western Hemisphere issues. I had the 
privilege of serving four years as Economic Counselor in Lima, from 
1996 to 2000. I also served as Deputy Chief of Mission in its Andean 
neighbor, Bolivia. Prior to my Foreign Service career, I spent my 
junior year in college studying in Quito, Ecuador. If confirmed, I look 
forward to working with our truly extraordinary U.S. Mission team in 
Peru to advance U.S. interests, to ensure the safety and welfare of all 
Americans and U.S. Government employees, and to further strengthen 
bilateral relations with the Republic of Peru. I look forward to 
working with the committee in furtherance of these goals, and I am 
happy to answer any questions you might have, now or in the future.


    Senator Rubio. Thank you all for being here.
    I am going to begin with just two questions to all three of 
you. The answers I do not think will take long, and then I am 
going to turn it over to the ranking member for his series of 
questions.
    The first question is, as many of you are aware, the 
President recently announced a change in policy towards Cuba. 
As we know, U.S. policy towards Cuba has often been a point of 
contention with our friends and allies in the western 
hemisphere. And I just want the assurances of each of you that 
irrespective of whatever personal views you may have about that 
policy, are you prepared, willing, able, and determined to 
defend the policy decisions of this administration in our 
interactions with the countries in which you will be 
representing the United States? Ambassador Arreaga?
    Ambassador Arreaga. Senator, you can count on me in terms 
of supporting all of the President's policies, regardless of 
what I think personally.
    Ms. Day. Thank you, Senator, for the question. And yes, I 
will.
    Mr. Urs. Thank you for the question, Senator, and I will as 
well.
    Senator Rubio. The second challenge in the hemisphere, as 
we are all aware of, is the deteriorating situation in 
Venezuela. It is my sincerest hope that, in combination with 
the countries that each of you, if confirmed, will be serving, 
along with the other four G5 nations in the hemisphere, Mexico, 
Canada, Brazil, and Argentina, we can pursue a way forward that 
restores the democratic order in Venezuela in a way that we 
hope is peaceful and leads to reconciliation. It is our hope 
that that can be done in conjunction with our partners in the 
region. It is possible, however, that the administration, as 
they have signaled, are prepared to act unilaterally, if 
necessary, should the illegal and unconstitutional assembly in 
Venezuela move forward on the 30th of July.
    Are each of you committed and prepared, able, and willing 
to defend such unilateral measures on the part of the 
administration if that is the direction they go with regard to 
punishing those responsible for basically trying to nullify the 
democratic process in Venezuela?
    Ambassador Arreaga. Thank you for your question. The answer 
is yes.
    Ms. Day. Thank you, Senator. And, of course, we will do all 
we can to confirm democracy and freedom across the globe.
    Mr. Urs. Thank you, Chairman. Yes, absolutely.
    Senator Rubio. The ranking member.
    Senator Menendez. Well, thank you, Mr. Chairman.
    I got worried that somehow the lunch consumed you. 
[Laughter.]
    Senator Menendez. So I am glad to see that you are back 
with us, and we are happy to be here with you.
    Congratulations to all of the nominees. It is a significant 
honor to be nominated to be the United States Ambassador to any 
country in the world. And so we congratulate you and all of 
your families because families are part of the sacrifice that 
is made here, and so we appreciate your families being here.
    Let me start with you, Ms. Day. So what is your view--I ask 
these questions of all of the nominees. I am going to turn 
around and ask each one of them because I am creating a 
historical precedent here or following a historical precedent, 
led by others, not that I believe in it, but I want to make 
sure we continue it.
    So you said you visited Costa Rica.
    Ms. Day. Yes, Senator, I have.
    Senator Menendez. Do you speak Spanish?
    Ms. Day. I do not, Senator.
    Senator Menendez. So that is not disqualifying as far as I 
am concerned, but for some it has been for other nominees.
    Let me ask you what do you see as the main items that you 
will be engaged in as our U.S. Ambassador in Costa Rica? What 
do you see as the top three things that your mission will be, 
if you are confirmed?
    Ms. Day. I think the top issue is to make sure that the 
mission runs in a manner that is the best use of our taxpayers' 
dollars and the opportunity to promote the safety and security 
of not just our friends and staff and members of the mission 
team, but also all Americans in country, and then to help with 
security issues to protect--Costa Rica to protect its borders 
and stop the infrastructure that is happening with narcotics.
    Senator Menendez. So what is your evaluation of--I do not 
know if you have had any briefings about the U.S.-Costa Rican 
joint patrol agreement that we have been involved in 
intercepting illicit narcotics destined for the United States. 
Have you had a chance to be briefed on that? Do you have any 
sense of it?
    Ms. Day. I have had some briefing information on it, 
Senator. Thank you for your question. The one instance that we 
do, it is a very great bilateral partnership with Costa Rica. 
They understand the importance of security in their countries 
and the problems that narcotics coming into its country for 
transportation and warehousing is an important issue. And they 
work very strongly with us, as well as the information and the 
staffing, the tools, the training, and the equipment that the 
United States is giving to Costa Rica for this cause.
    Senator Menendez. Now, Costa Rica has borne part of a 
significant share of addressing the crisis of unaccompanied 
minors from Central America. The last administration developed 
a comprehensive strategy for engagement in Central America that 
was largely in line with something we called the Alliance for 
Prosperity. How do you believe the United States should be 
engaged with Costa Rica as it relates to this question of 
within Central America, since it is one of the key Central 
American countries, and with the question of the flow of 
migrants?
    Ms. Day. Thank you, Senator, for that question.
    If confirmed, we will continue to work with the mission to 
make sure this happens. Costa Rica understands that there is an 
issue there, and from that end of it, we have worked very hard 
with the United States again with the training, with judicial 
training, some again efforts in place and systems in place to 
help those that have been trafficked to protection of it. So we 
will continue to work with them. We are working with them on 
language that meets U.N. regulations to strengthen that 
position. So we will continue at the mission. If confirmed, I 
will be glad to lead that support and effort for our country 
and to help the Costa Rican people.
    Senator Menendez. Finally, it is not a question but more of 
a statement. I know the chairman, I, and the chairman of the 
full committee have very much engaged in the question of human 
trafficking, and while Costa Rica is a great ally in so many 
different ways, I hope that you will pay some attention, when 
you are confirmed, to looking at the question of human 
trafficking in Costa Rica as part of your mission. Can we get 
you to say that?
    Ms. Day. I will. Thank you, Senator. It will be a high 
priority.
    Senator Menendez. Thank you very much.
    Ambassador Arreaga, you have a distinguished career serving 
in a variety of posts. So let me thank you for your service up 
front. Only in America can someone who is born in Guatemala 
become a United States citizen and return as the United States 
Ambassador to Guatemala. So it is an extraordinary story. It is 
also a great example of how immigration can be a positive thing 
for our country. So we salute you.
    I want you to follow on the question I asked Ms. Day about. 
Do you believe the U.S. strategy for engagement in Central 
America has been successful? What do you see are some of the 
major challenges as someone who is going to be in one of the 
key countries that we are engaged with, particularly as it 
relates to the movement of unaccompanied minors and others? 
Guatemala is one of those. Talk to me about what your views are 
on that.
    Ambassador Arreaga. Thank you for your question, Senator.
    This is an issue which I have been working with over the 
last 3 years. We have a very clear agenda to deal with this 
problem with Central America, one with Guatemala specifically. 
As I mentioned earlier, President Jimmy Morales met with Vice 
President Pence in Miami and they laid out a plan to deal with 
the three pillars of our engagement: prosperity, governance, 
and security.
    What we are going to be focusing on--the drivers of 
migration are security and the lack of economic opportunity. 
The prosperity piece is designed to address the lack of 
economic opportunity, and we are focusing it on the western 
highlands where most of the migrants come from. The security 
piece is absolutely essential because it is a driver of 
migration, and we have, I think, made significant progress in 
reducing crime rates, particularly in the areas where U.S. 
assistance has been provided, which is in training the police, 
in establishing community policing, and in working with the NGO 
community particularly in the most--in the areas we have the 
highest crime.
    And underlying all of this is, of course, our efforts to 
support President Morales' efforts to fight corruption. CICIG 
is a pillar of that. This is an institution that we have been 
supporting for years. We will continue to support because it 
has shown that it can actually address the problem of 
corruption in a systematic way.
    Senator Menendez. I am glad you mentioned CICIG because 
that was my next question to you. It has been, I agree, a very 
positive and innovative and successful justice model. But I 
have heard some alarming reports, including from Commissioner 
Ivan Velasquez Gomez himself, that it may be coming under 
pressure from the powers that be in Guatemala. It has been the 
U.S. policy to support CICIG, which has not only been 
successful in addressing impunity in Guatemala but also serves 
as a model for other countries in the region.
    So is it your intention, upon your confirmation, to be a 
voice in support of CICIG on behalf of the administration?
    Ambassador Arreaga. Thank you for your question, and the 
answer is an unqualified yes. CICIG is an underlying linchpin 
for our efforts in Central America--in Guatemala.
    Senator Menendez. Mr. Urs, I have been very concerned about 
reports of increased coca production in Colombia and have 
concerns about the impact this will have on transnational 
criminal organizations in the region. So have you had an 
opportunity to assess Peru's new national strategy against 
illicit drugs? And if so, what are your views of it?
    Mr. Urs. Yes. Thank you very much for that question, Mr. 
Senator.
    Peru earlier this year issued a new strategy that runs from 
2017 to 2021. It is an integrated strategy that attempts--a 
comprehensive strategy that attempts to attack narcotics 
trafficking and transnational criminal efforts in a broad range 
of areas. It looks at interdiction, eradication. It sets a 
target of 25,000 hectares of eradication each year for the 5-
year period. It has also alternate development as one of the 
pillars of it. And it has some other elements, health, and some 
other reform elements.
    So we have supported Peru's counternarcotics efforts and 
efforts against transnational crime for an extended period of 
time, and the country has made important inroads in terms of 
dealing with the problem. I think when we look at the total 
amount of hectares of coca there, the numbers have come up and 
down, as they have in many countries around the region. But 
when we look at the areas of the country that are now largely 
free of coca cultivation, the upper Huallaga Valley, Monzon, we 
find coca cultivation concentrated in smaller and smaller parts 
of the country. So I think our feeling is that Peru has been 
somewhat successful in this effort, and that we ought to 
continue to support their efforts.
    Senator Menendez. Have you visited Peru?
    Mr. Urs. I have. I spent 4 wonderful years in Peru from 
1996 to 2000 as the economic counselor there.
    Senator Menendez. Do you speak Spanish?
    Mr. Urs. I do.
    Senator Menendez. Now, two last questions, if I may, Mr. 
Chairman.
    What do you see as the most significant bilateral issues, 
if confirmed, that you will be dealing with as it relates to 
Peru?
    Mr. Urs. Thank you very much, Mr. Senator.
    We have four items that we list generally as our top 
priorities in Peru. They are combating transnational crime, and 
that includes not only drug trafficking but also illegal mining 
and illegal logging. Actually it is estimated that illegal gold 
mining may produce as much revenue, $2.6 billion in illegal 
revenue, as is produced by narcotics activity. And then in 
addition, illegal logging is also increasingly a problem. These 
types of issues, the illegal logging and illegal mining, also 
bring with them problems of trafficking in persons, 
environmental degradation. So there is a whole series of 
associated problems that are there with these other illegal 
activities and, of course, with narcotics as well. Narcotics 
production also causes very, very severe environmental 
degradation. So that is a top priority. We want to help the 
Peruvians in their efforts. They are front and center on this. 
We are being supportive of them so the main burden falls on 
them.
    We also have an institutional reform program that we are 
working with the Government of Peru. This is, again, their 
effort. We are being supportive. They are looking at dealing 
with issues about weak institutionality, corruption, those 
kinds of things by trying to move to an adversarial system of 
justice so that rather than the civil system, the Napoleonic 
Code type of system where investigations are done by an 
investigating judge and held in paper files, these cases are 
argued in a public way, in a verbal way. We feel that--and I 
think the Government of Peru feels--that that will allow the 
best disinfectant of all, which is public attention and air to 
resolve some of the issues that there are regarding 
institutionality in Peru.
    We also are working with Peru in many areas regarding 
environment, especially as I mentioned, in the gold mining area 
where mercury contamination is a byproduct of illicit gold 
mining. So there we just recently signed an agreement with the 
Government of Peru, a memorandum of understanding, that 
provides for cooperation in terms of dealing with the illegal 
mining problem.
    So those are some of our priorities.
    Senator Menendez. Well, I appreciate it. That is a very 
thoughtful answer.
    Let me just say we have a lot of Peruvian Americans in New 
Jersey, a very large concentration and a very industrious 
people, a very fine community. They have been very helpful. I 
hope at some point when you are back in the States, after 
confirmation, we might get you involved with them to listen to 
some of them. They are also great potential investors in their 
own country.
    Mr. Urs. Thank you very much for that, and Mr. Senator, I 
would be delighted to do that.
    Senator Menendez. And finally, I want to echo the 
chairman's remarks about Venezuela. I hope in Peru, which I 
want to applaud and, for that fact, Costa Rica as well and I 
believe Guatemala to some degree--has been good at the OAS. 
Unfortunately, we cannot seem to get our Caribbean neighbors to 
be as good on the issues of promoting the democratic charter of 
the OAS.
    So I hope that you and your respective missions will work 
with those countries, number one, to applaud them when they are 
actually out there doing things that are good for democracy and 
human rights in the hemisphere to give them a sense of support 
of that so that they will continue to stand up at the OAS and 
to urge them to find ways in which their relationships in the 
hemisphere are used to also promote at the OAS an opportunity.
    We are going to have the Secretary General here at a 
hearing with the chairman a little later, and it is not very 
normal that the OAS Secretary General comes before a committee. 
It is an extraordinary opportunity, and I would like to see it 
amplified by our Ambassadors.
    Thank you all for your answers.
    Senator Rubio. Thank you to the ranking member.
    I am not going to be outdone. We have a lot of Peruvians in 
Florida too. [Laughter.]
    Senator Rubio. And so on your way, as you are connecting 
flights, you got to stop in Florida and meet with them and with 
Guatemalans and people from Costa Rica.
    But let me just start with Costa Rica because there is an 
interesting angle to it, and it is in the phrase of both a 
question and asking for an assurance. We have a lot of U.S. 
travelers to Costa Rica. We have a growing number of Americans 
who have made it a part-time or permanent residence in Costa 
Rica but obviously retain their citizenship and the like.
    And one of the debates that is going on here in the 
Congress and on the Hill is about these budget cuts. A lot of 
times when people talk about budget cuts to State, they think 
we are talking about a bloated bureaucracy. And I think even 
those within the State Department would admit that there is 
always the need for reform. But part of what we do in our 
embassies is serve Americans when they are abroad. You lose 
your passport. You want there to be multiple consulates in a 
big country and an embassy that is well staffed that can come 
in and help you out. If you are living there for a significant 
period of time and have any needs from medical needs or the 
like, you want an embassy or consulates that are well staffed 
and well manned. And in the case of Costa Rica in particular, 
we have a significant number of American visitors and people 
spending months at a time.
    And so I would just ask your commitment, irrespective of, 
obviously, the chain of command, obviously, that you need to 
follow within the State Department. But this is really for all 
of you, but in particular Costa Rica. If at any time there is a 
need for greater services, it is important for those of us here 
on these committees to know about it. It is important for us so 
we can advocate for it. It is also important for us so we can 
point to it as an example that our embassies are not just these 
nice buildings that host cocktail parties, and they are not 
just there to interact with governments. They are also there 
primarily in many cases to serve our fellow Americans abroad 
who are in need of consular services for a variety of different 
topics.
    And I start only with Costa Rica because I know the sheer 
volume of travelers and visitors and increasing number of 
Americans who have made it home for a significant period of 
time throughout the year.
    Ms. Day. Thank you, Senator, again for that comment. And it 
is absolutely true. As we know, we are one of the top tourists 
groups of visitors that come from America to Costa Rica, 1.2 
million last year, plus about 160,000 expats that live there 
full-time as American citizens. So I will make it my highest 
priority to make sure that all Americans, whether in the 
embassy staff or team or Americans that are visiting or 
actually have decided to live there part-time, are protected 
and make sure that we have the funds and the mechanism in place 
and the security controls in place to protect those individuals 
while we continue to grow the embassy mission.
    Senator Rubio. And, Ms. Day, the other question on Costa 
Rica and comment is because of its geography and location, it 
has also become a transit point for migration. The volume is 
significant. This is actually true for Guatemala as well, but a 
place where a lot of people wind up because they cannot get 
somewhere else on transit and the like.
    Let me ask this. As you prepare for this assignment, what 
are your views? What have you sensed are some of the things we 
can be doing to help Costa Rica? I know you were asked about 
human trafficking and you alluded to it a little bit with some 
of the U.N. reforms and the like. But what resources could we 
be providing or cooperating with the Costa Rican Government to 
help? Because, obviously, many of those who are migrating 
through are headed towards the southern border of the United 
States and oftentimes have fallen victim to some of these 
horrifying trafficking groups that do horrible things to 
people. So what is your sense, as you prepare for this 
assignment, as to what we can be doing to partner with them to 
improve their capacity?
    Ms. Day. Thank you, Senator.
    Well, I think to continue to work closely in bilateral 
relationships with Costa Rica is vitally important. And we have 
seen an opportunity to do that with, again, whether it be the 
drug interdiction to try to help to stop the transportation and 
the warehousing that is going on, to fight organized crime 
because, as we know, again, when you have a strong and secure 
country, it does stop a lot of the issues.
    We have helped control and worked with them in tools and 
training and the necessary funding to help with our border 
security to try to prevent the migration again following into 
the United States. They are working with our data team, working 
with the tools, whether it be three additional Hueys or, again, 
vessels and docking opportunities for those vessels on the 
Pacific coast to stop, again, the migration of drugs into the 
country that way, and then again to help support the issues 
with the additional vetting for immigrants that come into 
country to try to help them relocate those that have come to 
Costa Rica for, again, safety.
    Senator Rubio. Ambassador Arreaga, I am an enormous 
supporter, as is the ranking member, of the Alliance for 
Prosperity. We think it is critical on multiple fronts, first 
because we do think it helps with some of the irregular 
migration patterns. The second is these countries face an 
extraordinary burden from the trafficking in drugs destined 
towards the U.S. consumer markets. So it is in our national 
interest to be of assistance.
    What you learn as you engage on these issues is that the 
three nations, El Salvador, Honduras, and Guatemala, have 
similar issues that they confront. They also have differences 
among them in terms of some are more advanced in one direction 
and another in terms of capacity.
    In your view, in the case of Guatemala, if they were here 
today with us and we were to propose to them this is where we 
think we can be most helpful in the short term, what would you 
say in the next 2, 3, 4 years is the most important part of the 
Alliance for us to focus on first in order to increase their 
capacity to do what I believe--and I think I shared with you 
and you share the share the same view--is their desire to make 
advances? Of all the components that they need, is there one or 
two key areas that we should focus on as we construct the 
future of the Alliance?
    Ambassador Arreaga. Thank you for your question, Senator.
    And, indeed, I would say that corruption remains the top 
priority. Nothing can move unless corrupt officials and corrupt 
members of the private sector are removed from what they are 
doing. That remains an important part.
    The other part I think is very important is to have greater 
engagement from the private sector. The private sector is part 
of the solution, and there are elements of the private sector 
in Guatemala that are interested in being part of the solution. 
So we need to get the private sector more engaged and 
continuing with a lot of the Government reforms.
    For instance, tax collections. Tax collections in Guatemala 
are among the lowest in the world. President Morales has 
appointed a very effective director of the tax office, and he 
is already showing some results. So we need to continue along 
these areas and also to discuss with Guatemalans the 
commitments that they made in Miami for the various elements of 
the plan and keep that moving.
    Senator Rubio. I am not sure about Peru, Mr. Urs. I am 
concerned that with the loss of the Trans-Pacific Partnership, 
at least the U.S. participation in it, that the hope of some 
vehicle by which greater economic engagement, even at a 
bilateral level, has perhaps been set back. I think Peru is a 
nation that has made extraordinary economic progress over the 
last few years and has the opportunity to do so much more.
    Irrespective of the decision made with regard to the Trans-
Pacific Partnership, what do you view are the opportunities to 
increase economic engagement between the U.S. private sector 
and that in Peru?
    Mr. Urs. Thank you very much for that question, Mr. 
Senator.
    Peru and the United States have a free trade agreement that 
came into force in February of 2009. That has actually been 
quite a dynamic agreement. We had two-way goods trade of about 
$9 billion in 2009. That has grown to $14 billion by 2016. We 
have done very well in that trade. We have about a $1.8 billion 
surplus, and we have done well in the agriculture sector as 
well where we have seen a tripling of our agricultural exports, 
which is always of great interest in the United States.
    I think the agreement, in addition to setting very high 
standards for market access, intellectual property rights 
protection, investor protections, environment, and labor, also 
provides for mechanisms for us to work together to try to 
further expand trade between the United States and Peru.
    And in that regard, I think one of the important challenges 
for us actually--Peru has seen enormous growth, as you pointed 
out, and they have seen a reduction in poverty as a result as 
well, about a half-way reduction in poverty in Peru, a halving 
of poverty in Peru. But what they have seen is there are some 
pockets of areas where they have not seen that kind of 
reduction, certain areas of the mountainous center of the 
country, the highlands, in some of the communities, the Afro-
Peruvian community, for example.
    So one of the things I would like to do, if confirmed, 
would be to look at how we could use the agreement and see if 
there are not some ways to link into the agreement so that 
these communities might possibly benefit from the agreement.
    I think there is an alternative side to that as well, 
another side to that, which is in the United States, there are 
also communities that might benefit from the agreement more 
than they currently do. And there might be parts of the United 
States, perhaps the center of the United States where perhaps 
the demise of manufacturing companies have really affected 
those areas, we could try to see if there is not some way to--
--
    Senator Rubio. I am not trying to trap you into a position 
where you are taking on the current administration's decisions. 
So let me rephrase it this way because, obviously, the existing 
trade agreement is in place.
    I will just cut to the chase. My concern is that if, in 
fact, Peru continues to move forward on free trade engagement 
with the region, multiple other countries, some of the 
competitive advantages of our bilateral free trade agreement 
erode as free trade with other countries become more available. 
So assuming that that will continue to be the policy for the 
foreseeable future, I guess the question really I should have 
asked--the way I should have phrased it was what can we do to 
ensure that we continue to grow our bilateral relationship in 
free trade even as the Peruvian economy may have multiple other 
options other than the United States in which to engage in 
greater trade. I think you have largely answered it in your 
answer.
    The more people they are trading with in some instances and 
that we are not a part of, the potential for some erosion is 
always there because they are getting a better deal from 
somewhere else. And so that is why I think our engagement is 
critical. You have touched upon some of the unique niche 
opportunities.
    My final question really has to do with the way the region 
is so interlinked, and that has to do with whether it is 
instability in Venezuela or--I want to be frank about this--the 
decision by President Santos as part of the peace negotiation 
to cut back on aerial-eradication leading to a massive increase 
in coca production in Colombia. It is not just impacting 
Colombia. It is impacting every nation along the supply line. I 
think that is true of Costa Rica. It is certainly true of Peru. 
It is especially true of Guatemala.
    Anytime you have an increase in production of cocaine, you 
have to sell it somewhere, and obviously, the United States is 
that destination. And we have an internal issue that we need to 
confront with consumption. But all these countries, some of 
which, like in the case of Guatemala, have limited consumption, 
are going to face the pressure as that supply races to meet the 
demand.
    From the perspective of that challenge, do any of you have 
concerns that our existing security, law enforcement engagement 
with the countries that you are about to, hopefully, represent 
our country in, that our existing programs are built adequately 
with enough resources to confront this additional challenge of 
a massive increase in coca production that is quickly on the 
way? And I imagine in large extent that question is about 
Guatemala.
    Ambassador Arreaga. Thank you for your question, Senator.
    And, indeed, we do have a very effective demand reduction 
program worldwide. And we always try to integrate supply 
reduction with demand reduction programs because we do know 
that anytime you have drug trafficking in a particular area, 
the potential for some of the citizens of the country where the 
drugs travel for becoming a drug addict is there. So we do have 
programs, and we have the ability to expand them as needed. But 
the answer is a short yes. We have it.
    Senator Rubio. Would anyone else care to comment?
    Ms. Day. Thank you, Senator.
    Again, with Costa Rica--and the President has spoken out 
very strongly about the support of the United States in helping 
Costa Rica and, again, gather strength in protecting that 
border and protecting the influence of drugs coming into Costa 
Rica for transportation. So absolutely, if confirmed, I will do 
everything that I can to make sure that we support their effort 
and we are there. The United States is in a bilateral 
arrangement with Costa Rica. Thank you.
    Mr. Urs. Mr. Senator, thank you for the question.
    I would just add one point, which is it is unlikely that 
many of the drugs that are produced in Colombia will come 
towards Peru. Peru is producing quite a number of drugs 
themselves.
    But what is true is that an increase in drug production in 
Colombia will strengthen the transnational criminal 
organizations, and those transnational criminal organizations, 
some of the same which we are fighting against in Peru--that 
strengthens the opponent, so to speak. So even in a place like 
Peru, which is not likely to be the destination of drugs coming 
from Colombia, can be affected in a negative way by an increase 
in production in Colombia.
    Senator Rubio. Well, I am out of questions, and the ranking 
member indicates he is as well.
    Just for those that perhaps have not been to one of these 
before, the fact that it is not full of Senators is actually a 
good sign, not a bad one.
    And we appreciate you being here today, your record of 
service, your willingness to continue to serve your country.
    Just as a matter of record keeping, the record of this 
hearing will remain open for 48 hours. It is possible the 
members of the committee may submit questions in writing for 
the record, and I encourage you to answer those expeditiously 
so we can continue to move forward.
    With that and without objection, this hearing is adjourned.
    [Whereupon, at 2:58 p.m., the hearing was adjourned.]



                              ----------                              



             Additional Matertial Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
        to Ambassador Luis Arreaga by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. During 1994-1998, I was responsible for the Africa 
humanitarian assistance portfolio at the Department. In this capacity I 
managed our relationship in Geneva with the U.N. High Commissioner for 
Refugees, the International Committee of the Red Cross, and the 
International Federation of Red Cross and Red Crescent Societies, at a 
time when these institutions were grappling with the aftermath of the 
Rwandan genocide. I worked to ensure that the hundreds of millions of 
dollars of U.S. Government funding to these institutions was directed 
to the most vulnerable populations in Rwanda (mostly internally 
displaced persons and the prison population) and surrounding countries 
(refugees from Rwanda). My engagement contributed to the protection of 
human rights for the most vulnerable populations in the Great Lakes 
region of Africa.
    Beginning in 2013, I have overseen the design and implementation of 
the Department's INCLE-funded programs in the Western Hemisphere. These 
programs encompass a range of activities (training, equipping, 
mentoring, and policy reforms) aimed at strengthening justice systems. 
We have placed particular emphasis on programs that protect vulnerable 
and historically marginalized groups (women, LGBTI persons, 
journalists, human rights defenders, and children). We have seen the 
positive impact of these programs, particularly in Central America, 
where special task forces are investigating emblematic cases, and where 
the law enforcement authorities are trained to investigate and 
prosecute crimes against vulnerable groups.

    Question 2. What are the most pressing human rights concerns in the 
Republic of Guatemala today? What are the most important steps you 
expect to take--if confirmed--to advance human rights and democracy in 
the Republic of Guatemala? What do you hope to accomplish through these 
actions?

    Answer. As Secretary Tillerson said before this committee, our 
mission is at all times guided by our longstanding values of freedom, 
democracy, individual liberty, and human dignity. Our foreign policy is 
motivated by the conviction that the more we engage with other nations 
on issues of security and prosperity, the greater our opportunities to 
shape the human rights conditions in those nations. The United States 
remains committed to advancing the human rights and fundamental 
freedoms of all persons. Dignity and equality for all are among the 
fundamental principles, which guide U.S. diplomacy.
    If confirmed, I will uphold these principles and continue to 
support the work of the U.N. Commission Against Impunity in Guatemala 
(CICIG) and the Guatemalan Public Ministry to combat impunity.
    If confirmed, I will also encourage CICIG to do more to transfer 
capacity to the Attorney General's office and other justice sector 
entities to strengthen their ability to prosecute human rights abusers. 
If confirmed, I look forward to continuing our commitment to addressing 
the most pressing human rights concerns in Guatemala.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Guatemala in advancing human rights, civil society and democracy in 
general?

    Answer. Lack of transparency, corruption, weak institutions, and 
high impunity rates pose significant obstacles to advancing human 
rights, civil society and democracy in Guatemala. The United States 
Government has partnered with like-minded leaders in Guatemala to 
address these issues. If confirmed, I will continue to support the work 
of CICIG and the Guatemalan Public Ministry to combat impunity and 
corruption, while supporting the transfer of capacity to the Attorney 
General's office and other justice sector entities, which will be 
better positioned to address human rights violations as a result. 
Robust vetting programs, done with the assistance of the U.S. 
Government and CICIG, have begun to remove bad actors from historically 
closed institutions like the police, corrections, and court systems.
    If confirmed, I will continue to support these leaders and the 
reforms they propose, which will ultimately lead to substantial 
improvements in human rights protections within Guatemala. I welcome 
the progress that has been made by CICIG to investigate and prosecute 
individuals engaged in criminal activities.
    If confirmed, I will continue to voice support publicly and 
privately for CICIG, the Public Ministry, and the Attorney General's 
office and other justice sector entities. If confirmed, I will also 
continue to support USAID's long-term National Institution 
Strengthening project to assist the Government of Guatemala in 
improving tax administration and public financial management of key 
institutions responsible for the planning, processing and execution of 
the national budget. Through a combination of these projects USAID 
supports the Guatemalan Government's efforts to be more responsive to 
its citizenry and increase investment in key areas such as health and 
education.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Republic of Guatemala?

    Answer. Yes; if confirmed, I am committed to meeting with human 
rights, civil society, and other non-governmental organizations in the 
U.S. and with local human rights NGOs from the Republic of Guatemala.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, we will continue to thoroughly vet all 
individuals and units nominated to participate in U.S.-funded security 
assistance activities, in accordance with the Leahy law. If we find 
credible information of a gross violation of human rights, we will take 
the necessary steps in accordance with the law and Department policy, 
including working to ensure the responsible parties do not participate 
in U.S.-funded training and will assist the Guatemalan Government to 
bring them to justice.

    Question 6. Will you and your embassy team actively engage with 
Guatemalan Government officials to address cases of key political 
prisoners or persons otherwise unjustly targeted?

    Answer. Yes; if confirmed, my embassy team and I will actively 
engage with Guatemalan Government officials to address cases of key 
political prisoners or persons otherwise unjustly targeted.

    Question 7. Will you engage with Guatemalan Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes; if confirmed I will engage with Guatemalan Government 
officials on matters of human rights, civil rights, and governance as 
part of my bilateral mission.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in the Republic of Guatemala?

    Answer. Neither I, nor any member of my immediate family (spouse, 
children or their families), have any financial interests in Guatemala.

    Question 11. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. A diverse and inclusive team is the type of team that, if 
confirmed, I will aim to foster. If confirmed, I will ensure the U.S. 
Mission in Guatemala continually strives to promote equal opportunity 
for our officers, including women and those from historically 
marginalized groups.

    Question 12. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that's diverse 
and inclusive?

    Answer. If confirmed, under my leadership, the Embassy will reflect 
our whole-of-mission commitment to promoting diversity and inclusion. I 
will make certain each of the supervisors at the Embassy has the 
opportunity to receive proper formal training and regular guidance to 
ensure they are helping to foster a work environment that is diverse 
and inclusive.

    Question 13. The administration's FY 2018 budget request to 
Congress includes a 39 percent cut in foreign assistance to the three 
countries of Central America's ``Northern Triangle''--El Salvador, 
Guatemala, and Honduras. Currently, U.S. assistance to those countries 
supports the ``U.S. Strategy for Engagement in Central America,'' a 
plan initiated in FY 2016 to address the root causes of irregular 
migration and related humanitarian challenges. If the USG cuts these 
violence-prevention, economic development, community policing, and 
criminal justice reform efforts, what is the risk that violence and 
insecurity will worsen and exacerbate migration and humanitarian 
challenges?

    Answer. The United States will continue to play a strong role in 
Guatemala, and in Central America overall to promote prosperity, 
governance, and security. Between FY 2015-17, the United States 
provided almost $2 billion in assistance to Central America. These 
resources, combined with the $460 million Central America request for 
FY 2018, emphasize continued U.S. commitment to reducing insecurity and 
violence, enhancing the business climate, and promoting improved 
governance. To complement U.S. assistance efforts and ensure long-term 
sustainability, we are also encouraging increased private sector 
investment in the Northern Triangle countries and seeking to mobilize 
additional support from other partner nations and global financial 
institutions.
    If confirmed, I will use the full range of tools available to me as 
Ambassador to advance U.S. priorities with Guatemala. We are also 
encouraged by the 23 percent increase in the Guatemalan Government's 
2017 budget for Alliance for Prosperity (A4P) activities ($83 million 
total), compared to 2016.

    Question 14. One of the main elements of current efforts to 
strengthen the rule of law and combat impunity in Guatemala is the need 
to improve the capacity and independence of the judicial sector, which 
has been vulnerable to interference from powerful sectors and internal 
corruption. What is the administration's strategy to support efforts to 
strengthen Guatemala's judicial sector, ensure judicial independence, 
and rid justice institutions of corruption?

    Answer. The administration is committed to expanding good 
governance through transparency and anti-corruption programs, and 
support for the work of CICIG, the Guatemalan Public Ministry, and the 
Attorney General's office.

    Questionn 15. If confirmed as the next U.S. Ambassador to 
Guatemala, how would you address these issues?

    Answer. If confirmed, I would continue to support our ongoing 
efforts to improve the capacity and independence of the judicial sector 
and seek to rid these institutions of internal corruption. If 
confirmed, I would also continue to support the work of CICIG, the 
Guatemalan Public Ministry, and the Attorney General's office to combat 
impunity.
    If confirmed, I would also support ongoing joint efforts between 
USAID, the Guatemalan Government, and civil society organizations to 
achieve greater security and justice for Guatemalans, and work with 
these partners to strengthen institutions, including through 24-Hour 
Courts and the High Impact Court model, as well as courts dedicated to 
responding to the high incidence of gender-based violence cases. U.S. 
assistance to the police academy, to investigators, to prosecutors, and 
to judges, is giving Guatemalans the tools they need to reduce impunity 
and bring about long-term institutional change.

    Question 16. If confirmed, will you prioritize continued support 
for the important work of the CICIG and the Attorney General's Office 
in tackling corruption and impunity?

    Answer. Yes; if confirmed, I will prioritize continued support for 
the important work of the CICIG and the Attorney General's Office in 
tackling corruption and impunity.

    Question 17. Guatemala still has one of the lowest levels of tax 
revenue in the world, limiting the state's capacity to provide basic 
services, improve economic conditions, and increase citizen security. 
At the same time, several recent high-profile corruption cases have 
implicated members of the private sector in bribery and other illicit 
activities. If confirmed as the next U.S. Ambassador to Guatemala, what 
will the administration do to encourage the Guatemalan Government to 
strengthen the tax code and improve tax collection?

    Answer. During the June 15-16 Conference on Prosperity and Security 
in Central America, the Northern Triangle governments committed to 
pursue reforms to improve their business climates, including 
eliminating red tape, improving transparency, and streamlining business 
formalization processes. They agreed to maintain macroeconomic 
stability and to fund their development, including ongoing efforts to 
raise revenues efficiently while improving the investment climate. 
These changes will help companies, including U.S. firms, expand their 
businesses in the Northern Triangle markets. Through USAID, we are also 
working to help modernize and promote transparency in institutions 
through our work with the Ministry of Finance, support reforms at the 
Tax and Customs Agency (SAT), and help the Morales administration reach 
its target of increasing tax revenues by 3 percent of GDP. The 
Department's Bureau of International Narcotics and Law Enforcement 
(INL) provides training, equipment and a Customs and Border Protection 
(CBP) customs advisor to SAT, and Treasury's Office of Technical 
Assistance has supported several advisors in Guatemala to improve tax 
collection and other issues. These efforts have demonstrated progress. 
SAT collected a total of 7.5 billion in taxes, exceeding its annual 
target by 33 million.
    If confirmed, I will continue to engage with the Guatemalan 
Government on ways to increase tax revenues, expand the tax base, and 
make it easier for companies to pay taxes, while continuing to root out 
corruption at all levels.

    Question 18. How would you ensure that U.S. assistance is not 
benefiting businesses or individuals implicated in corruption scandals?

    Answer. Thorough vetting is an essential component of U.S. 
assistance programs. We do not provide assistance to businesses or 
individuals implicated in corruption scandals. U.S. assistance is not 
used for direct budgetary support to the Guatemalan Government. INL 
vets government units prior to providing assistance, training, or 
information, and assists the Attorney General and police with vetting 
before special units are established. If confirmed, I stand ready to 
adjust our programming to prevent assistance from reaching corrupt 
individuals and to ensure that we continue to administer programs 
directly with implementing partners.



                               __________


     Responses to an Additional Question for the Record Submitted 
         to Ambassador Luis Arreaga by Senator Robert Menendez

    Question 1. As you know, the United States recently lost a dispute 
settlement case against Guatemala regarding the country's enforcement 
of labor provisions of the CAFTA-DR trade agreement. Despite accepting 
that Guatemala had failed to protect its workers and enforce its own 
labor laws, the arbitral panel decided that these actions did not 
constitute a violation of CAFTA-DR. Now that we appear to have lost the 
leverage provided by the agreement, what will you do to ensure that the 
Guatemalan Government addresses these longstanding labor abuses?

    Answer. If confirmed, I intend to continue working with the 
Guatemalan Government to ensure effective of its labor laws, modernize 
labor commitments, and advance labor and related political rights in 
Guatemala. Ongoing U.S. Government-funded programs are helping to 
strengthen the capacity of worker organizations to advocate for 
internationally recognized worker rights. I support the Guatemalan 
Government's commitment to strengthening national labor reform efforts 
and meeting job creation goals under the Plan of the Alliance for 
Prosperity and, if confirmed, will ensure these commitments are aligned 
with respect for labor rights.



                               __________


           Responses to Additional Questions for the Record 
             Submitted to Sharon Day by Senator Bob Corker

    Question 1. Are you concerned that the judicial persecution of 
American citizen Ann Patton--who may be subjected to a fourth trial 
after two acquittals--is based on a defect in criminal procedure that 
unintentionally vitiates double jeopardy protections under Costa Rican 
law?

    Answer. If confirmed, I will prioritize the safety, security, and 
protection of the legal rights of U.S. citizen visitors and residents, 
which includes retirees, veterans, students, and tourists. I will lead 
the Embassy in working with the Costa Rican Government to carry out 
this mission and to strengthen the bilateral relationship. The Costa 
Rican legal system, like that of many other countries, does not have 
the same double jeopardy protections provided under U.S. law.

    Question 2. Should U.S. citizens seeking investment and retirement 
opportunities abroad be concerned that they will face arbitrary and 
ceaseless prosecution, even after they have been acquitted?

    Answer. Costa Rica is an attractive destination for U.S. citizens 
seeking to invest or retire. An estimated 100,000 private U.S. citizens 
reside in the country, many of whom reside without legal resident 
status. A significant number are retirees and veterans. Costa Rica 
actively courts foreign direct investment, placing a high priority on 
attracting and retaining high-quality foreign investment. U.S. products 
and services have a favorable reputation in Costa Rica and U.S. 
companies continue to be interested in entering the market. Many 
companies have operations providing back office services in Costa Rica, 
and the medical device manufacturing sector has substantial U.S. 
investment. However, I understand that some concerns facing Costa Rica 
remain, including infrastructure, navigating bureaucracy, intellectual 
property enforcement, corruption, real legal property rights 
enforcement, electricity prices, and liberalization of key sectors. If 
confirmed, I will continue the strong bilateral relationship between 
our two countries and build on the efforts to continue to address these 
challenges.



                               __________


            Responses to Additional Questions for the Record
         Submitted to Sharon Day by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have spent many years promoting the importance of voting 
and helping individuals register to vote, monitoring voting locations, 
promoting Election Day voting, early voting, absentee voting and 
driving voters to the polls. I have educated, empowered, and encouraged 
women candidates to run for elected office. I have proudly shared 
across our country, as well as in foreign countries, America's proud 
principles of democracy, freedom and liberty.
    In 2000, I was responsible for coordinating volunteers to prepare 
for an election recount in my county and a neighboring county. 
Additionally, I served as a witness for each of the various media 
recounts. After the 2000 election, I was asked by Governor Jeb Bush to 
serve on Florida's Committee for Election Reform, a committee that was 
tasked to look at every aspect of the voting system in Florida.
    I believe, Human Rights are something you live every day--it is the 
way you live your life not just in a moment, but every day and with 
every action. It is the actions you take and the beliefs that you serve 
that every individual should live in freedom and have an equal 
opportunity. This my belief and it is how I live my life.
    I am someone who believes every child deserves the best education 
no matter their economic status or their zip code. I have stated this 
belief loudly and often. I believe that without an education a child 
cannot achieve their American dream and if every child does not fulfill 
his or her American dream, America cannot live up to our American 
dream.
    I was elected to serve as president of a women's club back in the 
mid-1990s, and part of the function of the club was community service. 
Before I was elected, community service consisted of buying a book for 
a library--usually for a school that didn't need it, to be honest. I 
created, and along with my board members' support, we initiated a book 
gifting program, a backpack program and a mentoring program for the 
students at an underserved school in Broward County. It was a ``D'' 
rated school (which became an A rated school in a few short years) 
whose students included, I believe at the time, 83 percent subsidized 
breakfast and lunches, some children that were homeless and majority 
made up of minority students. We adopted this school with our actions 
and our hearts. We developed a three stage program. First, we acquired 
books that were appropriate for K through second grade students. On the 
last week of school we hosted an end of school party with cookies and 
punch, and each class was brought to the library where they selected a 
book, wrote their name in it and kept it as their own. On a personal 
note, as hard as it may be to believe, many of the students had never 
owned their own book. Second, at the beginning of the next school year 
we provided a backpack for every student in K-2 with all the school 
supplies they would need for the year. Third, club members signed up to 
mentor children that needed help. Those three things happened for the 
four years that I served as President, and I am very proud to say the 
club still supports this wonderful elementary school even adding 
additional support not just for the students, but also for the teachers 
with grants to help advance their success too.
    In 1961, Hurricane Carla hit the Texas coast and many of my fellow 
Texans from Houston and the coast were forced to evacuate to my home of 
San Antonio. I spent the entire night and next day and night in my 
school cafeteria offering warm clothes and blankets, helping to make 
sure people had a hot meal, helping children settle in, setting up cots 
and trying to soothe and play with the children who had been displaced 
and were scared. We all do these things to help people in need, and to 
play with the children was easy for me and not a problem at all, as I 
was only 11 years old. I did not come home from school that day as they 
were setting up things nor the next two days until my mother and father 
insisted that I come home to rest. It was an event that still vividly 
lives in my memory today of time when I was able to help others who 
were so much in need and so scared.

    Question 2. What are the most pressing human rights concerns in the 
Republic of Costa Rica today? What are the most important steps you 
expect to take--if confirmed--to advance human rights and democracy in 
the Republic of Costa Rica? What do you hope to accomplish through 
these actions?

    Answer. Some of the human rights concerns that Costa Rica faces are 
trafficking in persons, conditions in overcrowded prisons, and 
discrimination based on sexual orientation and gender identity.
    Trafficking in persons is not just a crime against the person, but 
a crime against a society. Costa Rica shares our same concerns and is 
working to continue progress in this area. While I commend Costa Rica 
for its efforts in the fight against trafficking in persons, as 
demonstrated by its Tier 2 ranking in the Department's 2017 Trafficking 
in Persons report, I will, if confirmed, encourage Costa Rica to 
intensify efforts to investigate and prosecute trafficking offenses, 
convict and punish traffickers, and improve victim identification, 
referral, and assistance.
    If confirmed, I will make it a priority to lead with a passion and 
intensity to explore avenues in which the United States can help Costa 
Rica fight against the scourge of human trafficking and continue our 
efforts to encourage Costa Rica to seek a legal definition of 
trafficking consistent with international law.
    If confirmed, I will continue to work with the Government of Costa 
Rica and encourage the continuation of bilateral programs that will 
assist in advancing the protection of human rights. For example, the 
United States is providing technical assistance to Costa Rica to 
improve prison conditions, including in management and security, and 
increase the country's capacity to address gender-based violence. The 
Department advances reforms to Costa Rica's prison structure and 
facility operations including human rights training for the 
penitentiary police and a K-9 unit to reduce drug and cell phone 
smuggling into facilities. The Department also supports training 
focused on gender-based violence crimes, including an interagency 
training program for sexual assault response teams to develop the 
skills of medical professionals, social workers, police, prosecutors, 
and judges to support victims and understand the evidence in sex 
crimes. Materials donated in a successful pilot project have expanded 
access to medical care for victims.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Costa Rica in advancing human rights, civil society and democracy in 
general?

    Answer. President Solis prioritized anti-trafficking efforts and 
led a whole-of-government effort to focus on and invest resources in 
the fight against trafficking in persons. There is always the risk that 
future governments would not prioritize the fight against trafficking 
in persons, which could also present a challenge in advancing human 
rights, civil society and democracy in general.
    In addition, the United States has provided anti-trafficking in 
persons training to law enforcement officials, prosecutors and judges 
in the past, as well as technical assistance to Costa Rica to improve 
prison conditions, including in management and security, and increase 
the country's capacity to address gender-based violence. A significant 
change in this support may negatively impact Costa Rica's capacity.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Republic of Costa Rica?

    Answer. Yes, if confirmed, I am committed to meeting with human 
rights, civil society, and other non-governmental organizations in the 
United States and with local human rights NGOs from the Republic of 
Costa Rica.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, in accordance with the Leahy law, we will 
continue to vet all personnel and units nominated to participate in 
USG-funded security assistance activities. If we find credible 
information of a gross violation of human rights, we will work to 
assist the Costa Rican Government to take effective measures to bring 
the responsible parties to justice with the goal of creating a more 
accountable and professional security partner.

    Question 6. Will you engage with Costa Rican Government officials 
on matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes, if confirmed, I will engage with Costa Rican 
Government officials on matters of human rights, civil rights, and 
governance as part of my bilateral mission.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Republic of Costa Rica?

    Answer. No. Neither I, nor any member of my immediate family, have 
any financial interests in Costa Rica.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. A diverse and inclusive team is the type of team that, if 
confirmed, I will strive to foster. If confirmed, I will ensure the 
U.S. Mission in Costa Rica continually strives to promote equal 
opportunity for our officers, including women and those from 
historically marginalized groups.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, under my leadership, the Embassy will reflect 
our whole-of-mission commitment to promoting diversity and inclusion. I 
will ensure each of the supervisors at the Embassy have the opportunity 
to receive proper formal training and regular guidance to ensure they 
are helping to foster a work environment that is diverse and inclusive.



                               __________


      Responses to Additional Questions for the Record Submitted 
              to Krishna Urs by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of 31 years in the Foreign Service, I have 
worked to promote human rights in many different contexts and 
countries. At one point in my career, I advocated for and prepared a 
statement issued by the Department of State calling for an end to 
spiraling political violence involving security forces and a specific 
political party in one country. In several countries, I worked with 
national and local governments to establish safe houses for victims of 
human trafficking and to step up awareness campaigns about trafficking 
in persons. At my urging, the U.S. Government ended all assistance to a 
national police force in one country in which I served due to our 
concerns about the use of extrajudicial killings as a crime prevention 
tactic. In several countries, I advocated public statements by the 
Embassy to highlight areas of eroding respect by foreign governments of 
democratic institutions and norms.
    My actions in support of human rights over the course of my career 
produced concrete results. To provide just a few examples--our 
statement decrying spiraling political violence involving security 
forces resulted (at least temporarily) in fewer exchanges of gunfire 
involving the police. After we cut off assistance to the police in 
another country, the Government replaced the police chief (who had been 
linked to human rights abuses) with another official publicly committed 
to protecting human rights. Our statements in support of democracy 
served as encouragement to like-minded allies in the local society, 
helping to protect institutions and norms.

    Question 2. What are the most pressing human rights concerns in the 
Republic of Peru today? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in the 
Republic of Peru? What do you hope to accomplish through these actions?

    Answer. Our close relationship with Peru is built on shared 
interests and values, including the importance of human rights. Peru 
has made significant strides in support of human rights since the end 
of its 20 year internal conflict in 2000. Human rights challenges, 
however, persist in the areas of violence against women and children, 
trafficking in persons, and discrimination against Afro-Peruvians, 
Indigenous persons, and Lesbian, Gay, Bisexual, Transgender, and 
Intersex (LGBTI) persons. Corruption enables an environment allowing 
these and other human rights challenges to exist.
    If confirmed, I will use all the tools at my disposal to assist 
Peru in addressing its human rights challenges.
    By working together to promote human rights, social inclusion, and 
poverty reduction, we can achieve a more prosperous, inclusive, and 
democratic future for Peru.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Peru in advancing human rights, civil society and democracy in general?

    Answer. The Peruvian Government has shown a commitment to address 
many human rights challenges. If confirmed, I will encourage the 
Peruvian Government to continue its efforts to improve social inclusion 
and respect for human rights, seek opportunities for public-private 
partnerships toward this end, and cooperate with non-governmental 
organizations to multiply the effect of our assistance.
    I will work with Peru's Government to combat corruption, which can 
exacerbate social conflict, enable human rights abuses, and undermine 
confidence in government institutions.
    If confirmed, one of the challenges I will face will be to help the 
Peruvian Government and civil society find new ways to include the 
country's historically marginalized communities in Peru's economic 
success story.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Republic of Peru?

    Answer. Yes. Developing strong relationships with human rights 
advocates, civil society, and non-governmental organizations is one of 
the cornerstones of our partnership with the Peruvian people. If 
confirmed, I will continue the United States' longstanding practice of 
closely engaging Peruvian civil society to ensure I am fully attuned to 
Peru's human rights landscape. I will work closely with the Peruvian 
Government, civil society, and all relevant agencies of the U.S. 
Government to ensure every dollar of U.S. assistance is used wisely and 
in accordance with our human rights goals and the Leahy Law.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. As a U.S. Government employee with 31 years standing, I am 
firmly committed to implementing all relevant U.S. laws and 
regulations, including the Leahy law, when fulfilling my duties. If 
confirmed, I will work to ensure no assistance is provided to foreign 
security force units where the Department has credible information that 
such units engaged in gross violations of human rights, in accordance 
with the Leahy law. I will also work to ensure the U.S. Mission in Peru 
works with the Government of Peru to help them take effective steps to 
bring those responsible for any violations of human rights to justice.

    Question 6. Will you engage with Peruvian Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. If confirmed, I will engage the Peruvian Government 
and civil society on human rights, civil rights, and democratic 
governance. Peru has a critical role to play in encouraging regional 
stability and is an important partner of the United States.
    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Republic of Peru?

    Answer. No. Neither I, nor any members of my immediate family, have 
financial interests in the Republic of Peru.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am a strong believer in the value of diverse teams in 
identifying, analyzing, and addressing issues and problems. Diversity 
helps prevent ``groupthink,'' ensuring that issues get a thorough 
examination from all possible perspectives and making sure that all 
viable options are explored. If confirmed, I can assure you that I will 
take diversity into consideration in filling high level positions at 
the U.S. Mission in Lima, as I have done in past assignments. I am 
committed to mentoring for all staff members, but especially for those 
from diverse backgrounds and under-represented groups.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will work with each member of my country 
team to ensure they are giving proper consideration to assembling a 
diverse and representative team. I will also ensure country team 
members understand their responsibility to provide mentoring and 
guidance to mid-level and junior members of their teams, with specific 
emphasis on diverse and under-represented groups.

    Question 12. Earlier this year, Peru issued a new decree to 
establish a payment process to service longstanding debt related to 
agrarian reform bonds. Numerous U.S. firms and citizens hold an 
interest in these bonds, including several Maryland pension plans. If 
confirmed as the next U.S. Ambassador to Peru, will you commit to 
working with the Peruvian Government to achieve a final resolution of 
this issue? Will you work with the U.S. Securities and Exchange 
Commission and the Department of the Treasury to ensure that they have 
accurate information about the amount owed on the bonds?

    Answer. If confirmed as the next U.S. Ambassador to Peru, I look 
forward to learning the details of this complicated case. I fully 
commit to engaging with the Government of Peru to press for a fair and 
timely resolution of these complex issues. I understand the independent 
regulator with jurisdiction over Peru's U.S. law bonds, the Securities 
and Exchange Commission, has been asked for views on this case, and I 
will follow up. I will also engage Treasury for its views on the 
appropriate treatment of these particular domestic obligations in 
national economic statistics. I understand there is considerable debate 
on the appropriate valuation of these securities, the resolution of 
which could impact on the value of other U.S. investors' holdings of 
Peru's domestic and international debts, and I will press for a speedy 
resolution of the related methodological issues.



                               __________





                              NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 20, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Gardner, Young, Barrasso, Portman, Paul, Cardin, Menendez, 
Shaheen, Coons, Murphy, Kaine, Markey, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  The Foreign Relations Committee will come to 
order.
    We have a number of distinguished nominees here today, and 
we welcome them.
    We also have a number of very distinguished introducers, 
and we welcome you. We thank you for coming to our committee. 
In order for you to be able to go ahead and do other business 
today, Senator Cardin and I will defer, relative to making 
opening comments, and let you go ahead and do what you need to 
do. We look forward to those comments, and then, we realize, 
you will probably like to go elsewhere.
    I know Senator McConnell is also coming today, and Senator 
Rubio. But why don't we just start in the order of seniority? 
We appreciate so much you being here.
    Senator Cardin. That would be Senator Lieberman. Oh, you 
are not talking about age.
    The Chairman.  Actually, I was.
    But we welcome you all.
    And, Senator Cornyn, why don't you start? We thank you for 
your distinguished service to our country, and for being here 
today.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Mr. Chairman, Ranking Member 
Cardin, and members of the committee.
    It is a pleasure to be back here. It is the second time in 
less than a couple weeks. It is not often that I darken the 
door of the Foreign Relations Committee, but as long as the 
President keeps nominating Texans, I promise to come back 
often.
    I cannot think of a better nominee to an important 
ambassadorship to Brussels than our dear friend, Kay Bailey 
Hutchison. She truly is someone who needs no introduction, but 
I am going to give her one anyway.
    I had the honor of serving alongside of Kay for 10 years in 
the Senate. And when I got here, there were some things that I 
figured out pretty quickly about her.
    Number one, she is tireless. You would be hard-pressed to 
find a Senator in the Chamber who worked harder than Kay 
Hutchison.
    Second, she was relentless. She would not stop until she 
achieved her objective.
    And most importantly, she always did what she thought was 
the right thing for Texas. Whether it was working with 
Republicans or Democrats, that was always her guiding star.
    As I think about the type of individual best-suited to 
represent the U.S. on the world stage, I can think of no one 
better than Kay.
    She has always been a trailblazer. After graduating from 
the University of Texas Law School, she became the first female 
on-air news reporter in Houston. Years later, she became the 
first woman to represent Texas here in the Senate.
    When she was here, as you will recall, her leadership was 
quite evident. She served as the ranking member of the 
Commerce, Science and Transportation Committee, and chaired the 
Republican Policy Committee.
    Kay was not and is not afraid of working across the aisle. 
It was the way she was able to get so much done during her time 
here, not only on behalf of Texas but on behalf of the Nation.
    She has always been a fierce advocate for military 
families. It is no exaggeration to say that every base in our 
State has felt the impact of her work. And she has worked hard 
for veterans, to make sure they get the medical assistance, job 
training, and support that they needed when they came home.
    And she has worked hard to promote things like tax relief 
for hardworking Texas families. And she made it easier for 
women to save for their retirement and worked to reduce the 
unfair marriage penalty tax.
    During her time here, Kay served on the Intelligence 
Committee, and the Armed Services Committee as well. So I know 
that promoting American global leadership and strong diplomacy 
guided her committee work and will prepare her well for her 
duties in Brussels.
    So I think her time in this chamber was instructive as to 
how she will serve in this new position. We are, as we all 
know, in a time of increasing instability across the globe. And 
now more than ever, our friends and allies need a determined 
and steady hand representing the United States.
    Senator Hutchison has the experience, determination, and 
tact required for our representative to Brussels. And there is 
no one better prepared to successfully navigate and strengthen 
our relationships on the world stage. Kay will do it, and she 
will do it with poise and grace.
    So I look forward to supporting her confirmation on the 
Senate floor.
    Once again, thank you, Mr. Chairman, Senator Cardin, and 
members of the committee for allowing me to say a few words on 
behalf of Kay Bailey Hutchison.
    The Chairman.  We thank you so much for being here.
    Senator McConnell, you are welcome to go next, or if you 
want to get your thoughts together, we can go to Senator Cruz. 
It is your choice. We defer to you.
    Senator McConnell. Mr. Chairman, since I also need to also 
open the Senate, if you would not mind, if Senator Cruz would 
not mind, I would like to go ahead.
    The Chairman.  We thank you very much for being here. It is 
an honor to have you, and we look forward to your comments.

              STATEMENT OF HON. MITCH McCONNELL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator McConnell. It is my privilege to be here today to 
recommend Kelly Knight Craft, a native of Glasgow, Kentucky, to 
serve as the next United States Ambassador to Canada.
    President Trump made a strong choice when he nominated her, 
and in today's hearing, this committee will learn of her 
experience and skill in advancing the priorities of the United 
States.
    Ms. Craft has a distinguished record of service in my home 
State of Kentucky and to our Nation. She helped lead 
organizations like the United Way of the Bluegrass, the YMCA of 
Central Kentucky, the Salvation Army of Lexington, and the 
Center for Rural Development. She has also served on the board 
of trustees of our shared alma mater, the University of 
Kentucky.
    In 2007, President Bush named her to serve as an alternate 
representative for the U.S. delegation to the United Nations 
General Assembly. The Senate confirmed Ms. Craft to that 
position by unanimous consent. In the General Assembly, she 
represented the United States' position on the New Partnership 
for Africa's Development.
    Her ability to build consensus among international 
stakeholders toward a common goal served her well at the U.N., 
and I believe it also makes her an ideal candidate to be the 
next Ambassador to Canada.
    The United States and Canada are closely interconnected, 
sharing a common history and set of values, while boasting a 
strong bilateral relationship founded on robust security and 
trade relations.
    The relationship with Canada is particularly important for 
Kentucky. Direct investment from Canada supports thousands of 
Kentucky jobs, and Canada is the Commonwealth's number-one 
export market. Maintaining this strong relationship between our 
two nations is vital.
    So Ms. Craft has the necessary skills and experience to 
continue the long history of friendship between our nations. 
Her work will continue to serve the interests of the United 
States very well.
    I would also like to recognize her husband, my good friend, 
Joe Craft, another extraordinary Kentuckian, who is here today 
to support his wife's nomination.
    So thanks, again, Mr. Chairman, for allowing me to testify 
on behalf of Kelly. I appreciate your consideration of her 
nomination, and we look forward to her confirmation.
    The Chairman.  Thank you so much for being here.
    Senator Cornyn, if you feel like you want to help open the 
floor, you are welcome to leave also. Thank you so much for 
coming.
    Thank you both.
    Senator Cruz?

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Mr. Chairman, Ranking Member Cardin, members 
of the committee, it is a privilege to join you this morning, 
especially with the great honor of introducing my friend and a 
true Texas legend, Senator Kay Bailey Hutchison.
    Many of you served with Kay and know her well as a friend 
and colleague. All of you, I know, respect Kay. And a great 
many, I know, were grieved when you saw her successor. 
[Laughter.]
    The Chairman.  I don't think that is the case.
    Senator Cardin. Ayes and nays? [Laughter.]
    Senator Cruz. I object. [Laughter.]
    Senator Cruz. But I have to say I think Kay Bailey 
Hutchison is an extraordinary choice to be Ambassador to NATO. 
The President has chosen well, and I am confident that the 
Senate will agree in that assessment.
    Kay's history in Texas, she was born in Galveston and grew 
up in La Marque. She is a proud Texas Longhorn, having earned 
her law degree at the University of Texas. Her late husband, 
Ray, was also a Texas public servant, having served in the 
Texas House and also as chairman of the State Republican Party. 
And their two children, Bailey and Houston, are the joys of her 
life.
    Senator Hutchison began her public service career in the 
Texas House, and honorably served our home State for 20 years 
in this body, where she built a distinguished record of service 
on the Senate Armed Services Committee and the Defense and 
Military Construction Appropriations Subcommittees that will 
give her direct and powerful insight into the security issues 
facing Europe and North America.
    Few statesmen have the qualifications, the relationships, 
and the gravitas that Senator Hutchison brings to this 
position.
    After years of inadequate resourcing, Kay led an effort in 
the Senate to rebuild our military and helped prepare to meet 
the new, more stringent demands of the global war on terror.
    After the Kosovo conflict, Kay led the first Senate codel 
to the region. There, she met with NATO leaders to discuss the 
future of our NATO endeavor and to help bring stability and 
democratic elections to the region.
    In fact, Kay has toured every major conflict since her 
arrival in the Senate in 1993. From Bosnia to Iraq, Afghanistan 
to Serbia, Senator Hutchison made it a priority to meet with 
commanders in the field, with troops in areas of combat, and 
with international leaders to make sure that they had the 
resources that our military needed to carry out their mission. 
She has a heart for the men and women serving our Nation.
    Her commitment to safeguarding America's national security 
will serve her well in this new role protecting America's and 
our allies' interests as U.S. Ambassador to NATO.
    Kay also has an eye for talent. When I arrived in this 
body, in my office among the staff, we had a John Cornyn mafia 
as part of the staff. We had a Rick Perry mafia as part of the 
staff. But there was no bigger group than the KBH mafia, which 
was and is a very large chunk of our team because she has such 
a good eye for talent and she trains them well. That will serve 
her well as our Ambassador.
    You know, I agree with the President's effort to extract 
more from our allies in support of NATO. I think that is a 
positive direction for our country. But I think it is also very 
good to have a U.S. Ambassador who has a strong will and a 
gracious smile to represent America, to represent America with 
our allies and strengthen those friendships and alliances. And 
I am proud to support her nomination.
    The Chairman.  Thank you for being here. I think we would 
all agree we have had two very strong-willed Senators in this 
seat.
    And so we can save the best for last, Senator Lieberman, I 
am going to Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you for this opportunity and the 
privilege of introducing Mr. Lewis Eisenberg of Florida to be 
the Ambassador to the Italian Republic and to the Republic of 
San Marino.
    Mr. Eisenberg is a cofounder and managing partner of Iron 
Hill investments in New York. From 1995 to 2001, he was 
chairman of the Port Authority of New York and New Jersey, 
responsible for overseeing the region's international airports 
and seaports, bridges, tunnels, and the World Trade Center. He 
was named a founding board member of the Lower Manhattan 
Development Corporation, which was formed after the terrorist 
attacks of 11th of September 2001. He chaired its Victims' 
Families and Transportation Advisory Councils for 2 years, from 
2001 to 2003.
    Mr. Eisenberg was a senior adviser for Kohlberg Kravis 
Roberts from 2009 to 2015, cochairman of Granite Capital 
International Group, both in New York, from 1990 to 2011. He 
spent 23 years at Goldman Sachs, where he served as a general 
partner and cohead of the equity division.
    He is a recipient of numerous awards and has been honored 
by the American Jewish Committee, the National Conference for 
Community and Justice, Monmouth University, Liberty Science 
Center, the Boys and Girls Clubs of Newark, New Jersey, and the 
New Jersey Alliance for Action.
    As you can see, has strong links to New York and New 
Jersey, so you may ask, what does that have to do with Florida? 
Well, that is very typical of Florida, strong links to New York 
and New Jersey.
    But I know him as a resident of Florida, and I have known 
him for quite a while, along with his family. I am excited for 
him and for the country. He will be an incredible 
representative of the United States with an important ally.
    He is, I believe, deeply qualified for this position, and 
we are, frankly, grateful for his willingness to serve his 
country and our country.
    So thank you. Thank you, Mr. Chairman.
    The Chairman.  Thank you. Thank you very much.
    Senator Lieberman?

              STATEMENT OF HON. JOSEPH LIEBERMAN, 
              FORMER U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman, Senator Cardin, 
members of the committee. It is good to be back here.
    Let me say, first, just a loud, sincere amen to all of the 
positive words said about Kay Bailey Hutchison, someone who I 
have been privileged to know well.
    I am honored to be here this morning to introduce to the 
committee K.T. McFarland as the President's nominee to be our 
Ambassador to the Republic of Singapore.
    K.T. has had a remarkable career, which just says so loudly 
that she is ready to take on this post. You can see it in the 
documents before you. If you had a chance to meet her, I think 
you probably appreciate it.
    There have been two letters filed with the committee that I 
think speak really in a very unique way about the arc of K.T.'s 
life in service. The first is from Dr. Henry Kissinger who 
writes on her behalf, as a student at George Washington 
University, K.T. worked as an assistant for Henry Kissinger 
when he was National Security Adviser in the early 1970s, and 
stayed with him through the Nixon and Ford administrations.
    The second letter is from General H.R. McMaster, who K.T. 
has worked with over the last several months as Deputy National 
Security Adviser.
    I think those two letters together tell you how qualified 
she is.
    But I am really here as a friend of K.T.'s, and as a friend 
of her husband's, Alan McFarland. I just want to speak briefly 
about them in that regard.
    Alan and I went to college and law school together. I will 
not embarrass either of us by telling you how long we have 
known each other. Maybe I will say, in general terms, that we 
are in the sixth decade of our friendship, and it has been a 
good friendship that has taken us through all the ups and downs 
of life.
    I can tell you, based on that, that K.T. and Alan are 
people of great character, high principle, a commitment to 
living an ethical life. They will bring with them, if 
confirmed, to Singapore a spirit of patriotism and honor, and a 
commitment to improving the relationship between our two 
important countries that are such great allies.
    I thought that I would tell you two stories to indicate 
briefly who these people are.
    On Election Night, the first time I ran for the U.S. Senate 
when I got elected, I was an underdog. It was very close. It 
was not until well after 11 p.m. that I felt confident enough 
to go down and declare victory. We all remember the maxim that 
victory has a thousand parents but defeat is an orphan.
    My suite at the hotel in Hartford had filled up amazingly 
as the returns began to come in. And finally, when I was 
heading out, somebody came over to me and said there is 
somebody named Alan McFarland on the phone. So it was such a 
drawing back to a friendship and earlier life, I went and took 
the call. And Alan was full of excitement and congratulations. 
And he said, hey, incidentally, K.T. had an apartment in 
Washington that we are not using since she is in New York with 
me. If you need a place to live for a while, why don't you use 
it?
    So I totally forgot about it, went down, got swept up in 
all the post-election stuff. About a month later, because 
Hadassah was going to stay in Connecticut with our kids until 
June when they finished school, I had one of those pre-
senatorial moments when you say, where am I going to live? And 
I remembered the call, and they graciously had me as their 
tenant for 5 or 6 months.
    So I would add to K.T.'s resume that she once operated a 
shelter for a homeless Senator, and did it well. [Laughter.]
    Senator Lieberman. The second is a very different kind of 
story. You will note on K.T.'s resume that her work life has 
been divided into two. In between, beginning in the mid-1980s, 
she made a tough decision, which was that she was going to 
devote herself to being a wife and mother, eventually of five 
children.
    One of them is a story that says a lot about Alan and K.T. 
In 1995, Alan's first wife, Nell, who was married to a man some 
of us knew named David Sawyer, they died within a short period 
of time of each other, and they left a son who was essentially 
alone. And it is a long story, but the bottom line is that Alan 
and K.T. stepped forward and adopted Luke and have raised them 
as their child. It really says a lot about them.
    I grew up with the phrase from the Talmud that, if you save 
one life, it is as if you save the entire world. And they saved 
one life, and, in that, I think the entire world.
    So for all of these reasons, both professional and 
personal, I recommend K.T. McFarland to you without hesitation. 
I truly believe she deserves your support, that she deserves 
nonpartisan support from the Senate.
    Thank you very much.
    The Chairman.  We thank you both very much for being here.
    Before I turn to Senator Menendez, who is going to 
introduce our next Ambassador nominee, you all are welcome, if 
you wish, to go about other business. We really do appreciate 
both of you being here and elevating our meeting.
    Senator Rubio. Thank you.
    Senator Lieberman. Thank you very much.
    The Chairman.  Senator Menendez?

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    We generally say that the United States and the United 
Kingdom have a special relationship. And, indeed, there are few 
other nations with whom our bilateral relationship is as 
expansive and as important as the United Kingdom. And that 
relationship is based on shared values of our two nations, 
democracy, respect for human rights, and having helped shape 
the postwar, rules-based international order.
    Maintaining and strengthening this relationship is critical 
for the United States' national security, for our transatlantic 
relationships in general, and many of our foreign and military 
engagements around the world.
    Being a diplomat requires certain qualities and the ability 
to navigate uncertain waters. Some new diplomats try their hand 
at this endeavor with the best intentions but fumble in their 
execution.
    Hailing from the great State of New Jersey, however, I have 
no doubt that Robert Wood Johnson is up to the task and would 
be an excellent representative of the United States.
    Mr. Johnson is the chairman and CEO of the Johnson Company.
    He is the CEO of the New York Jets. It is the one few 
things that I have in disagreement with him. It should be the 
New Jersey Jets. But in any event, they are the New York Jets.
    And he has a wide range of civic endeavors, and also sits 
on the Council on Foreign Relations.
    As the United Kingdom continues to sort out the practical 
implications of Brexit, including future trade deals, his 
successful private sector experience, I think, will be 
critical.
    In our conversation earlier this week, he expressed his 
appreciation for the importance of our robust security 
relationship and intelligence-sharing operations with the 
United Kingdom. He has spoken on how he will draw on the 
knowledge and experience of the career officers with whom he 
has met. And his extensive management experience will be an 
asset in running a large Embassy in London.
    He has assured me that he will consult with this committee, 
something we always like to hear from our nominees. And I 
believe it is critically important that our Embassy in London 
has the leadership it needs to continue strengthening the 
already deep bond between our two nations.
    And I believe Mr. Johnson can provide that leadership. And 
I welcome him to the committee, Mr. Chairman.
    The Chairman.  Thank you so much. I apologize for not 
knowing you were introducing until just a moment ago. We thank 
you for that introduction.
    And I thank all of you for being here. I think we have an 
extremely distinguished panel here today. I am glad that all of 
you are here together, and I appreciate your desire to serve 
our country in the way that you have.
    We are going to consider, as we all know, the nominee to be 
U.S. Ambassador to Canada, our single largest trading partner 
as of May 2017.
    Throughout the Cold War and to this day, Canada has stood 
shoulder-to-shoulder with the United States through the North 
American Aerospace Defense Command, better known as NORAD.
    Canada's military is an important NATO partner, and we have 
close intelligence-sharing and law enforcement ties.
    Canada values its relationship with the United States, and 
we value our very close relationship with our neighbor to the 
north. This week, Prime Minister Trudeau joined Vice President 
Pence in speaking to the U.S. National Governors Association.
    Canada also supports working with the U.S. and Mexico to 
update the North American Free Trade Agreement.
    We will also have a conversation with our nominee to be the 
U.S. Permanent Representative to NATO.
    NATO faces the threat of an increasingly antagonistic 
Russia, which has occupied the Crimean and eastern regions of 
Ukraine, a country once considered a contender for NATO 
membership.
    NATO has increased its deployments in the Baltic region in 
recent months due to fears of a potential clash with Russia 
there. Both NATO itself and individual member states are 
members of the U.S.-led coalition conducting airstrikes against 
ISIS.
    Maintaining a strong NATO depends not just on the United 
States but on all members meeting their commitments on defense.
    And we thank you for being here to do that.
    We will look to the nominee to be Ambassador to the United 
Kingdom as well, one of the United States' most critical 
allies. The bilateral U.S.-U.K. relationship has grown into a 
global network of military, intelligence, and trade 
partnerships that together fight terrorism, resist Russian 
aggression, and drive economic growth.
    The United Kingdom has not just deployed its military 
beside ours, it has helped us build the international framework 
that includes the United Nations and NATO. Our countries work 
together with these institutions to help make the world a safer 
and more prosperous place.
    We thank you for being here.
    We will also have a chance to engage the nominee to be 
Ambassador to Italy, where we also have positive and strong 
relations.
    Italy is now on the U.N. Security Council and continues to 
play a key role in European and Mediterranean security policy.
    We thank you for being here.
    Lastly, we will consider the nominee to Singapore. 
Singapore is one of our strongest security partners in 
Southeast Asia and plays rotational host to the U.S. naval 
vessels operating in the region.
    Singapore is also a key economic and trading partner for 
the United States in the region. Our strategic partnership is 
vital to maintaining peace and stability in the Indo-Pacific.
    We thank you for being here.
    I really am elated that all of you are here together. I 
think you are going to do an outstanding job for our Nation. I 
know you are honored to be nominated to these positions.
    And with that, I will turn to our distinguished ranking 
member, my friend, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                  U.S. SENATOR FROM MARYLAND.

    Senator Cardin. Thank you, Mr. Chairman. Let me welcome all 
five of our nominees and their families.
    First, I really want to thank each of you for being willing 
to serve your country, and thank your families as we recognize 
this cannot be done without a supportive family, so we thank 
you.
    The five positions that are being nominated are extremely 
important to our country.
    And, Mr. Chairman, I hope that you will be a little bit 
lenient as far as the time limits are concerned, because these 
are extremely important countries, and I know members may have 
questions that they want to ask more than one witness.
    Secondly, I would ask our nominees that we do questions for 
the record. I know Kay is well-aware of that. I would ask that 
you give that personal attention. I know sometimes there is a 
volume issue here. I know that we are not going to be able to 
get through all the questions we want to ask you directly, and 
the questions for the record are very important.
    I know I am going to defer a lot of my questions for the 
record, so I just ask that you recognize that, because of the 
large number who are here, and the importance of the countries 
that are represented, that this is our opportunity to get 
important issues aired that are in the portfolios that you will 
be responsible for.
    It is particularly a pleasure to have Kay Bailey Hutchison 
back before our committee, and it must be a little different 
experience on the other side of the dais, but we thank you very 
much. I know that you are going to do an incredible service to 
our country at NATO.
    We had a chance to go over some of those issues in my 
office. NATO is so important to our national security. Probably 
today more than ever before, there are challenges. We know that 
Russia's aggression really is a major concern to many of our 
NATO partners. And our strategies on how we deal with Russia's 
incursions into Ukraine and Georgia and Moldova is a real 
challenge to NATO. We know Afghanistan is a continued 
challenged NATO.
    So you are going to have your plate full, and we look 
forward to working with you and this committee.
    I particularly, Mr. Chairman, like one of the suggestions 
that Senator Hutchison made on how we can formally observe the 
work at NATO and have representatives of our committee work 
directly with our Ambassador, so I thank you very much for that 
suggestion. I thought it was an excellent suggestion.
    With all four of the countries that are represented here, 
there is a common thread. We have democratic countries that 
share our principles of democracy that are critically important 
to us for intelligence gathering and sharing of intelligence 
information. They are major trading partners that are 
critically important to our economy. And many of these 
countries share directly in our military burdens, and whenever 
we need help, it is those countries that we turn to first that 
help us in regard to our national security concerns. So these 
are really close partners.
    The chairman knows that I always raise issues concerning 
human rights. You might think that when you are looking at four 
democratic countries, that maybe that is not as important. 
Promoting American values is always important. Our strength is 
in our values, and our values are respect for human rights for 
all citizens.
    So particularly as it relates to Singapore, we do have 
issues. Singapore does not protect people against 
discrimination based upon their sexual orientation or gender 
identity. They also are ranked near the bottom in their 
protection in many of the human rights issues.
    Reporters Without Borders ranked Singapore 151st out of 180 
nations in its annual World Press Freedom Index behind 
neighbors such as Burma, Cambodia, and Malaysia.
    So we will be asking you, Ms. McFarland, how you will 
represent American values in Singapore, a friend and trading 
partner, and a major commerce center, as to how we can get 
advancements on these universal human rights, which I believe 
are very, very important.
    I really did enjoy the conversations I had with several of 
you, and I want to just underscore a point that Senator 
Menendez said in regard to Mr. Johnson, the same thing is true 
of Ms. Craft, that there is a real genuine desire to work with 
this committee, members of Congress, to further the missions of 
the United States in the countries that you represent.
    So I look forward to a robust discussion, and I again thank 
you all for your willingness to serve our country.
    The Chairman.  Thank you for your comments.
    Senator Hutchison, we are glad to have you back. Since you 
have done this so many times on this side of the dais, we 
thought it would be good for you to lead off and help the 
others get started.
    I understand that at least the first five rows are family 
members and friends. It may be that the entire audience is 
that. We hope so.
    But please feel free, as you come to your turn, to 
introduce your family and friends who are here with you. We 
thank them for their willingness to support you in the effort 
that you are getting ready to undertake.
    With that, Senator Hutchison, thank you for being here.

 STATEMENT OF HON. KAY BAILEY HUTCHISON OF TEXAS, TO BE UNITED 
  STATES PERMANENT REPRESENTATIVE ON THE COUNCIL OF THE NORTH 
   ATLANTIC TREATY ORGANIZATION, WITH THE RANK AND STATUS OF 
          AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY

    Senator Hutchison. Thank you so much, Mr. Chairman.
    I do not have my two teenagers here. Many of you knew my 
teenagers when they were little babies, and I was walking the 
halls with them. They are both back in Dallas. I have my 
neighbor from Virginia, Mary Jarrett.
    The Chairman.  We do hope to get you to NATO by the time 
school enrollment starts.
    Senator Hutchison. Thank you. It is so important that my 
son starts school on time, so I thank both of you for 
acknowledging that.
    And I also want to thank you, Mr. Chairman and Mr. Ranking 
Member, for your courtesies throughout this process and your 
leadership and the way you work this committee together. I 
appreciate it so much.
    I appreciate all the members of the committee, and I know 
how much you spend in time and effort to make sure that our 
foreign policy, our Ambassadors, our State Department, our 
military and the Defense Department are covered in the Senate. 
You do a great job, and I thank you.
    I am not used to being on the side of the podium, as you 
have said, but I had many great years here.
    I am here, if you consent, to have the opportunity to 
represent our country in a different way, but in an area with 
which I am very familiar. As my colleagues have said before, I 
have visited U.S. troops in harm's way in every conflict that 
we had when I was in the Senate, and very often, there were 
NATO members with those troops--Bosnia, Kosovo, Iraq, and 
Afghanistan.
    I have met with military and diplomatic leaders as well, 
and I have to say that our diplomatic side, which is one that I 
had not been as familiar with, was amazing.
    In Bosnia, when we went in, the Serbs were still shooting 
from the hills. Our Ambassador resided in a bombed-out building 
that did not have running water. He slept on a cot in his 
office to serve our country, when we first went into Bosnia.
    I visited Afghanistan right after our troops started going 
in. I stayed in a Russian-built institution in the hanger that 
the Russians had built near a runway in Afghanistan. It was the 
only place that the troops could sleep. So there were hundreds 
of cots under this leaky-roofed hanger, and all they had with 
them was a duffel bag with their uniforms. They were making way 
for the presence that we would have there, for the building of 
a hospital, for the building of barracks, so that those who 
followed would have a place to do their job.
    That is what our people to in the Foreign Service and the 
military. And my appreciation for them is boundless.
    I look forward to being an effective partner for our 
policies, for our military, for our allies, who are also making 
sacrifices for our mutual defense.
    NATO is the most successful defense alliance in the history 
of the world. It was formed in 1949. And at the time, President 
Truman said, following two terrible World Wars in that century, 
``By this treaty, we are not only seeking to establish freedom 
from aggression and from the use of force in the North Atlantic 
community, but we are also actively striving to promote and 
preserve peace throughout the world.''
    It was determined that an alliance between Europe and North 
America sends a message of solidarity that would deter 
aggression and help avoid a third World War and, in the event 
of conflict, make earlier action against a common enemy more 
effective in protecting freedom for its democratic members.
    Does NATO exist to protect allies against any threat of 
aggression? Yes. That was one of NATO's original mission. It 
remains relevant today.
    But NATO has also evolved into much more, because today's 
security environment now encompasses a much broader array of 
challenges, including asymmetric warfare.
    Terrorism by ISIS, Al Qaeda, and other extremist elements 
seek a caliphate to displace religious freedom where it is 
protected throughout the world. Rogue nations, such as Iran and 
North Korea, have developed ballistic missile capabilities and 
may be close to achieving nuclear weapons, a threat to all the 
29 members of the alliance and our partners.
    Russian disinformation campaigns and malign influence 
targeting NATO allies and partners seek to undermine Western 
democratic institutions and principles, and sow disunity in our 
longstanding transatlantic bonds.
    In its evolution, many questions are raised. Does every 
country in the alliance meet its agreed commitment? No. 
Improvements are in order.
    President Trump has called for a stronger effort from 
allies not meeting the Wales pledge on defense investment--2 
percent of GDP on defense, and 20 percent of total defense 
expenditures on defense modernization. Allies need to meet this 
commitment.
    We also stand firm on Article 5. President Trump has said 
that each ally should honor the pledge to increase spending 
because it will make all of our efforts more robust, our 
deterrence credible, and the cost of our collective defense 
will not unfairly rest on the shoulders of American taxpayers.
    I believe, as you have said in your opening statements, 
that the shared values of democracy, protection of human 
rights, individual liberty, and rule of law bind all NATO 
members. This bond must be reinforced because it does unite us.
    I have said as a U.S. Senator, and will continue to say, 
that that this alliance is something like the world has never 
seen. Our allies have been by our side throughout history. Our 
allies especially have been with us in Afghanistan, which has 
been a tough road. They have stood with us in solidarity in 
Afghanistan, where over 900 troops of our allies and partners 
have given their lives alongside U.S. soldiers for more than 15 
years.
    Our NATO allies are our core partners in diplomacy and on 
the battlefield, our partners of first resort in dealing with 
old and new threats to the security of our people.
    The strength of this alliance benefits every member.
    If confirmed, I hope to represent the integrity of the 
American commitment to be a formidable enemy and a reliable 
ally. America should be both.
    In closing, I want you to know how much I appreciate the 
hard work you do. I have been there, and I know that every one 
of you love America like I do, and you are here to make sure 
that our country is the strongest and safest for all of your 
constituents.
    And I want to make sure that we are able to preserve what 
our fore-fathers and -mothers gave to us and fought for and 
died for, in many instances: security, freedom, and an 
indomitable spirit.
    Thank you so much.
    [Senator Hutchison's prepared statement follows:]


            Prepared Statement of Hon. Kay Bailey Hutchison

    Good Morning Chairman Corker, Ranking Member Cardin and all of the 
committee.
    I'm not used to being on this side of the podium, but I am pleased 
to be where I spent so many great years working with my colleagues for 
my state and our united country.
    I am here if you consent, this time, to have the opportunity to 
represent our country in a different capacity, but in an area with 
which I am very familiar.
    I have visited U.S. troops often, sometimes together with service 
members from other NATO nations, wherever they have been in harm's 
way--Bosnia, Kosovo, Iraq and Afghanistan. I have met with military and 
diplomatic leaders during their deployments, sometimes as in Bosnia, 
where our Ambassador resided in a bombed-out building, sleeping on a 
cot in his makeshift office, or in a Russian-built hanger next to a 
runway in Afghanistan, where hundreds of troops slept under a leaky 
roof with only a duffel bag of uniforms under their cots as they began 
to build a headquarters, barracks and hospital for the larger 
contingent to follow.
    My appreciation for the work of our military and the crucial role 
of the diplomatic corps is boundless and I look forward to being an 
effective partner for our policies, for our military and for our 
Allies, who are also making sacrifices for our mutual defense and 
protection.
    NATO is the most successful defense and security alliance in the 
history of the world. It was formed in 1949 after the sad experience of 
the two world wars last century. President Truman said at the time, 
``By this treaty, we are not only seeking to establish freedom from 
aggression and from the use of force in the North Atlantic community, 
but we are also actively striving to promote and preserve peace 
throughout the world.''
    It was determined that an Alliance between Europe and North America 
sends a message of solidarity that would deter aggression and help 
avoid a third World War, and in the event of conflict, make earlier 
action against a common enemy more effective in protecting freedom for 
its democratic members.
    Does NATO exist to protect Allies against any threat of aggression? 
Yes, that was one of NATO's original missions and it remains relevant 
today. But NATO has also evolved into much more because today's 
security environment now encompasses a much broader array of 
challenges, including asymmetric warfare. Terrorism by ISIS, Al Qaeda 
and other extremist elements seek a caliphate to displace religious 
freedom where it is protected throughout the world. Rogue Nations such 
as Iran and North Korea have developed ballistic missile capabilities 
and may be close to achieving nuclear weapons; a threat to all of the 
29 members of the Alliance. Russian disinformation campaigns and malign 
influence activities targeting NATO Allies and Partners seek to 
undermine Western democratic institutions and principles, and sow 
disunity in longstanding transatlantic bonds.
    In its evolution, many questions are raised. Does every country in 
the alliance meet its agreed commitment? No. Improvements are in order. 
President Trump has called for a stronger effort from Allies not 
meeting the Wales Pledge on Defense Investment--2 percent of GDP on 
defense, and 20 percent of total defense expenditures on defense 
modernization. Allies need to meet this commitment because it is 
necessary for their security.
    I am encouraged by the recent meeting of Alliance Heads of State 
and Government where, under the leadership of the Secretary General, 
Allies agreed to redouble efforts to meet their commitments on defense 
spending and burden sharing.
    In addition there are moves to become more focused on the common 
threat of terrorism, including efforts to ramp up counter terrorism 
initiatives.
    I believe the shared values of democracy, protection of human 
rights, individual liberty, and rule of law bind all NATO members. This 
bond that unites us must be reinforced. Those values underscore why we 
need to remain firm in dealing with Russian aggression, balancing an 
Alliance commitment to strong deterrence with political dialogue, 
foremost on issues like the situation in Ukraine. I want--I think all 
NATO Allies want--a constructive relationship between NATO and Russia, 
but there can be no return to ``business as usual'' between NATO and 
Russia as long as Russia fails to live up to the deal it signed in 
Minsk and continues to ignore basic norms of international law and 
responsible international behavior.
    President Trump stands firm on the U.S. commitment to Article 5 of 
the North Atlantic Treaty. He has also asked that each Ally honor the 
pledge they made to increase defense spending so that our capabilities 
will be robust, our deterrence credible, and the cost of our collective 
defense will not rest unfairly on the shoulders of the American 
taxpayers.
    I have said this as a U.S. Senator and I will continue to encourage 
our allies to equitably share the responsibility for our common 
defense.
    We are stronger together than any one of our countries would be 
alone. Our Allies have been by our side throughout NATO's history. The 
first--and only--time in the Alliance's decades' long history NATO 
invoked Article 5, the collective defense clause of the Washington 
Treaty, was when America was attacked on September 11th, 2001. Allies 
stood with us in solidarity, and there is no better example of this 
than Afghanistan, where over 900 troops from Allies and partners have 
given their lives alongside U.S. soldiers for more than 15 years. Our 
NATO Allies are our core partners in diplomacy and on the battlefield, 
our partners of first resort in dealing with old and new threats to the 
security of our people. The strength of this alliance benefits every 
member.
    If confirmed, I hope to represent the integrity of American 
commitments. To be a formidable enemy, we must be a reliable Ally. I 
want America to be both.
    In closing, I appreciate the role of the Senate. I know how hard 
you work and the dedication of each of you to represent your state and 
build the strongest and safest union for those who elected you to be 
their representative in Washington.
    Thank you for your consideration. If confirmed, I look forward to 
working with you to represent this Country that we love and to protect 
what our forefathers and mothers fought for us to keep--security, 
freedom and an indomitable spirit.


    The Chairman.  Thank you so much for your comments.
    Ms. Craft?

 STATEMENT OF KELLY KNIGHT CRAFT OF KENTUCKY, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                       AMERICA TO CANADA

    Ms. Craft. Thank you. I would like to express our thoughts 
and prayers for Senator McCain and his family.
    Thank you, Chairman Corker, Ranking Member Cardin, and 
members of the committee.
    And a special thanks to my fellow Kentuckians, Leader 
McConnell, who has been such a dear friend to our family for so 
many decades, and Senator Paul, who, as a friend and a member 
of this committee, makes me feel right at home.
    It is an honor to be with you today as the President's 
nominee to be the U.S. Ambassador to Canada. I am humbled to be 
entrusted with this responsibility to lead our engagement with 
such an important friend, ally, and neighbor.
    I have not made this journey alone. With me today are my 
husband, Joe; two of our children, Jane and Kyle; my brother 
Marc and his wife, Elisabeth; our close friend John Wyatt. My 
daughter, Mia, is home preparing for her wedding in 2 weeks. My 
sister, Micah, is watching from our hometown of Glasgow, 
Kentucky. Our other children and grandchildren are watching 
from Oklahoma.
    Although my parents, Dale and Bobby Guilfoil, have passed 
away, they gave me the gift of unconditional love and an 
unwavering faith in God, for which I will always be grateful.
    I appreciate the confidence that President Trump, Vice 
President Pence, and Secretary Tillerson have shown in me, and, 
if confirmed, I commit to work every day to live up to their 
trust, in collaboration with the most talented and dedicated 
public servants. They are truly exceptional.
    On a personal note, I am a testament to the fact that if 
this young girl, who grew up 671 miles southwest from here, can 
be nominated by the President of the United States as the first 
woman to serve as Ambassador to Canada, anything is possible 
when you work hard.
    And I know that Senator Shaheen knows this firsthand, as I 
have been so inspired by her public service.
    My first diplomatic experience with Canada was in 2007 when 
I represented the U.S. Government with the American people at 
the opening of the United Nations General Assembly. While 
observing several multilateral negotiation teams, I experienced 
how the American-Canadian relationship could be a powerful 
force around the world.
    I share the President's belief that the United States is 
deeply fortunate to have a neighbor like Canada. Just 3 weeks 
after his inauguration, on February 13th, President Trump 
hosted Prime Minister Trudeau. As President Trump said that 
day: Our two nations share much more than a border. We share 
the same values. We share the love, truly a great love, of 
freedom. And we share a collective defense. American and 
Canadian troops have gone to battle together, fought wars 
together, and forged the special bonds that come when two 
nations have shed their blood together.
    Today, the economies of the United States and Canada are 
similarly intertwined. We are one another's number one trading 
partner.
    If confirmed, I will work tirelessly to further enhance our 
strong economic partnership, the most extensive and integrated 
economic relationship of any two nations in the world. The 
nearly $2 billion in goods and services and 400,000 people 
crossing the border every day are testaments to the strength of 
this relationship.
    I believe we can do better. If confirmed, I will seek new 
opportunities to foster further growth to create more jobs for 
both countries while promoting free and fair trade to ensure 
that American businesses and workers can compete on a level 
playing field.
    A significant part of our economy is our energy 
relationship, the world's largest. If confirmed, I will advance 
our shared goals of energy security, a robust and secure energy 
grid, and a strong and resilient energy infrastructure.
    Recognizing that our cooperation on energy is inextricably 
linked with the environment, I will also work to advance our 
shared environmental goals, stewardship of our common 
watersheds, landmass, wildlife, farm life, and the air we 
breathe, from coast to coast to coast as the Canadians say, the 
Atlantic, the Pacific, and the Arctic.
    At 5,525 miles, the U.S.-Canada border is the longest 
shared border in the world. We in Kentucky know a few things 
about borders. We have seven States with whom we share a 
border. And the only trouble comes when they go home, like to 
Tennessee and Indiana after losing to the Kentucky Wildcats. 
[Laughter.]
    Ms. Craft. The United States is fortunate to have a 
neighbor that shares a strong commitment to democratic values 
and works tirelessly to promote peace, prosperity, and human 
rights around the world.
    Canada is our partner in NORAD and NATO, and it is with 
great appreciation that I acknowledge the Canadian troops who 
have served bravely alongside Americans throughout our shared 
history.
    If confirmed, I will be a respectful steward of this 
partnership with Canada. Thank you for this opportunity to be 
with you today.
    [Ms. Craft's prepared statement follows:]


                   Prepared Statement of Kelly Craft

    Thank you Chairman Corker, Ranking Member Cardin, and members of 
the committee. And a special thanks to my fellow Kentuckians, Leader 
McConnell who has been such a dear friend to our family for so many 
decades, and Senator Paul, who as a friend and a Member of this 
committee makes me feel right at home.
    It is an honor to be with you today as the President's nominee to 
be the U.S. Ambassador to Canada. I am humbled to be entrusted with 
this responsibility to lead our engagement with such an important 
friend, ally and neighbor.
    I have not made this journey alone. With me today are: my husband 
Joe, and two of our children, Jane and Kyle, my brother Marc and his 
wife Elisabeth, and our close friend John. Our daughter Mia is home 
preparing for her wedding in two weeks, my sister Micah is watching 
from our hometown of Glasgow, Kentucky, and our other children and 
grandchildren are watching from home. Although my parents, Dale and 
Bobby Guilfoil have passed away, they gave me the gift of unconditional 
love and an unwavering faith in God, for which I will always be 
grateful.
    I am appreciative of the confidence that the President, the Vice 
President and Secretary Tillerson have shown in me and, if confirmed, I 
commit to work every day to live up to their trust, in collaboration 
with the most talented and dedicated public servants--they are truly 
exceptional.
    On a personal note, I am a testament to the fact that if this young 
girl, who grew up 671 miles Southwest from here, can be nominated by 
the President of the United States as the first woman to serve as 
Ambassador to Canada, anything is possible when you work hard. I know 
that Senator Shaheen knows what I'm speaking of, as I have been so 
inspired by her public service.
    My first diplomatic experience with Canada was in 2007 when I 
represented the U.S. Government and the American people at the opening 
of the United Nations General Assembly. While observing several 
multilateral negotiation teams, I experienced how the American-Canadian 
relationship could be a powerful force around the world.
    I share the President's belief that the United States is deeply 
fortunate to have a neighbor like Canada. Just three weeks after his 
inauguration, on February 13, President Trump hosted Prime Minister 
Trudeau in Washington.
    As the President said that day, ``our two nations share much more 
than a border. We share the same values. We share the love, and a truly 
great love, of freedom. And we share a collective defense. American and 
Canadian troops have gone to battle together, fought wars together, and 
forged the special bonds that come when two nations have shed their 
blood together.'' He added that ``both of our countries are stronger 
when we join forces in matters of international commerce. We will 
coordinate closely to protect jobs in our hemisphere and keep wealth on 
our continent, and to keep everyone safe.''
    Today the economies of the United States and Canada are similarly 
intertwined. We are each other's number one trading partner.
    If confirmed, I will work tirelessly to further enhance our strong 
economic partnership--the most extensive and integrated economic 
relationship of any two nations in the world. The nearly $2 billion in 
goods and services and 400,000 people crossing our border every day are 
testaments to the strength of this relationship.
    I believe we can do even better. If confirmed, I will seek new 
opportunities to foster further growth to create more jobs for both 
countries, while promoting free and fair trade to ensure that American 
businesses and workers can compete on a level playing field.
    A significant part of our economic relationship is our energy 
partnership--the world's largest, in fact. If confirmed, I will advance 
our shared goals of energy security, a robust and secure energy grid, 
and a strong and resilient energy infrastructure. The United States and 
Canada's highly integrated and interdependent energy markets make North 
America a potential global energy powerhouse.
    Recognizing that our cooperation on energy is inextricably linked 
with the environment, I will also work to advance our shared 
environmental goals, stewardship of our common watersheds, landmass, 
wildlife, farm life, and the air we breathe--from coast to coast to 
coast as they say in Canada, meaning not only the Atlantic and Pacific, 
but the Arctic as well.
    At 5,525 miles, the U.S.-Canada border is the longest shared border 
in the world. The two countries are connected by more than 120 land 
ports of entry, more than 200,000 annual flights, and the numerous 
commercial and recreational vessels that cross the maritime border. We 
work closely with our Canadian partners to promote lawful trade and 
travel, while securing our common perimeter. We in Kentucky know a 
thing or two about borders, we have seven states with whom we share a 
border, and the only trouble comes when zealous basketball fans from 
Tennessee and Indiana to find themselves headed back home after, 
oftentimes, losing to our own Kentucky Wildcats.
    The United States is fortunate to have a neighbor that shares our 
strong commitment to democratic values and works tirelessly to promote 
peace, prosperity, and human rights around the world.
    Canada is our partner in NORAD and in NATO, and it is with great 
appreciation that I acknowledge and respect the Canadian troops who 
have served bravely alongside Americans throughout our shared history. 
If confirmed, I will be a respectful steward of this partnership with 
Canada.
    Thank you for this opportunity to be with you today. I would be 
pleased to answer your questions.


    The Chairman.  Thank you for your comments and your 
willingness to serve in this capacity.
    Mr. Johnson?

    STATEMENT OF ROBERT WOOD JOHNSON IV OF NEW YORK, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
 STATES OF AMERICA TO THE UNITED KINGDOM OF GREAT BRITAIN AND 
                        NORTHERN IRELAND

    Mr. Johnson. Yes, I would like to offer my family's prayers 
to the McCain family and wishes for a speedy recovery as well.
    Chairman Corker, Ranking Member Cardin, and distinguished 
Senators, I am deeply honored to appear before you today. I am 
grateful to President Trump for nominating me to be the United 
States Ambassador to the United Kingdom of Great Britain and 
Northern Ireland.
    And I am also deeply humbled that I may be permitted to act 
as the Ambassador of the President and the American people. 
Both family history and personal experience confirm to me that 
public service is both a privilege and an obligation, and that 
the ties between the United States and the United Kingdom are 
profoundly important.
    Today, I am joined here by my wife, Suzanne; my children 
Jamie, Daisy, Brick, and Jack; and, most gratifying, my 97-year 
old mother, Betty, who, during World War II, served in the 
Navy, teaching celestial navigation to Navy sailors.
    She inspired in me the importance of service and love of 
country. I can assure you that she expects nothing less of me 
than the best of me right now. And, if confirmed, I will not 
disappoint.
    I am committed to the United States' historic partnership 
with the U.K. Almost 100 years ago, my grandfather opened the 
first Johnson & Johnson facility in the U.K. That company is 
there to this day.
    During World War II, he also served in the military to help 
small- and medium-sized businesses play a direct role in the 
United States' wartime partnership with the United Kingdom. 
This partnership, this special relationship, endures today.
    I first traveled to the United Kingdom more than 50 years 
ago and have been back many times for both business and 
pleasure. I care deeply about the United Kingdom and our 
relationship with it. If confirmed, I will devote all of my 
energy to strengthening and deepening that relationship.
    Chairman Corker, Ranking Member Cardin, and Senators, as 
the U.K. undergoes a complex transition, politically and 
economically, there are opportunities and challenges for the 
United States. I believe I can make a contribution by drawing 
both on my business and philanthropic experience.
    I have had the privilege of managing many organizations, 
bringing in people from diverse backgrounds and experience and 
perspectives. It is my belief that diversity of experience and 
expertise are strengths in achieving shared goals and 
priorities.
    In my years working with the Robert W. Johnson Foundation 
to improve health and health care for Americans, I learned the 
value of patience and tenacity in meeting challenges. The 
foundation's 40-year, multibillion dollar effort to reduce 
smoking is just one example.
    After my daughter Jamie was diagnosed with lupus, I 
launched the Alliance for Lupus Research in 1999. I did this 
not only for my daughter, but to help the 1.5 million Americans 
that suffer from lupus, 90 percent of whom are women stricken 
with lupus.
    It took years to bring together this organization with the 
best scientists, organizational structure, and figuring out how 
to raise money to become now the world's largest non-government 
funder of lupus research, to treat, cure, and prevent lupus.
    Owning the New York Jets has taught me the importance of 
commitment and perseverance. [Laughter.]
    Mr. Johnson. Right. Exactly.
    One example of that, not a football example, one example of 
that is our 10-year effort to build a stadium. It is very 
difficult to build a stadium, and we accomplished the 
objective. We built a privately funded $1.6 billion stadium in 
the great State of New Jersey.
    If confirmed by the Senate, my mission will be to 
strengthen America's special relationship with the U.K.
    The U.K. has been our most steadfast ally in promoting 
freedom, fairness, and the rule of law. My first task there 
will be to know the talented professionals at the Embassy. I 
have been tremendously impressed by the professionalism and 
dedication of the men and women of the State Department, and 
the Embassy is home to many of our best people. I want to 
inspire and enable our Embassy to provide exemplary service to 
American citizens and businesses.
    If confirmed, my goal would be to provide the strong 
leadership needed to preserve and strengthen, once again, this 
absolutely special and critical relationship.
    Thank you very much.
    [Mr. Johnson's prepared statement follows:]


                  Prepared Statement of Woody Johnson

    Chairman Corker, Ranking Member Cardin, and distinguished Senators, 
I am deeply honored to appear before you today. I am grateful to 
President Trump for nominating me to be the United States Ambassador to 
the United Kingdom of Great Britain and Northern Ireland. I am also 
humbled that I may be permitted to act as the Ambassador of the 
President and the people of the United States.
    Both family history and personal experience confirm to me that 
public service is both a privilege and an obligation, and that the ties 
between the United States and the United Kingdom are profoundly 
important.
    Today I am joined by my wife Suzanne; my children Jamie, Daisy, 
Robert and Jack; and, most gratifying, my 97-year old mother, Betty. 
During World War II, my mother, Minnesota-born and raised, served in 
the navy, teaching celestial navigation to sailors. She inspired in me 
the importance of service and love of country. I assure you that she 
expects nothing less than the best from me and, if confirmed, I will 
not disappoint.
    I am committed to the United States' historic partnership with the 
UK. Almost 100 years ago, my grandfather opened Johnson & Johnson's 
first overseas operation in the UK, and the company is there to this 
day. During World War II, he too served in the military and helped 
small and medium-sized businesses play a direct role in the United 
States' wartime partnership with the United Kingdom; this partnership, 
this special relationship, still endures.
    I first travelled to the United Kingdom more than 50 years ago, and 
have been back many times for business and pleasure. I care deeply 
about the United Kingdom and our relationship with it. If confirmed, I 
will devote all of my energy to strengthening and deepening that 
relationship.
    Chairman Corker, Ranking Member Cardin, and Senators, as the UK 
undergoes a complex transition, politically and economically, there are 
opportunities and challenges for the United States. I believe I can 
make a contribution by drawing upon both my business and philanthropic 
experience.
    I have had the privilege of managing many organizations, bringing 
together people from diverse backgrounds and perspectives. It is my 
belief that diversity of experience and expertise are strengths in 
achieving shared goals and priorities. In my years of working with the 
RWJ foundation to improve Americans' health, I learned the value of 
patience and tenacity in meeting challenges. The foundation's forty-
year multi-billion dollar effort to reduce smoking is just one example.
    After my daughter Jamie was diagnosed with Lupus, I launched the 
alliance for Lupus research in 1999. I did this not only to treat my 
daughter, but to help the 1.5 million people in the U.S.--ninety 
percent of them women--stricken by Lupus. It took years to bring 
together the best scientists, organizational structures and capital 
sources to make it the world's largest non-government funder of 
research to treat and cure Lupus.
    Owning the New York Jets has taught me the importance of commitment 
and perseverance. One example is the ten-year effort we undertook to 
build a new, privately-funded, $1.6 billion stadium in the Meadowlands, 
in the great state of New Jersey.
    If confirmed by the Senate, it will be my mission to protect and 
strengthen America's special relationship with the UK. The United 
Kingdom has been our most steadfast ally in promoting freedom, fairness 
and the rule of law. My first task there would be to know the talented 
professionals at the Embassy. I have been tremendously impressed by the 
professionalism and dedication of the men and women of the State 
Department, and the Embassy is home to many of our best people. I want 
to inspire and enable our Embassy to provide exemplary service to 
American citizens and businesses. If confirmed, my goal would be to 
provide the strong leadership needed to preserve and strengthen our 
special relationship with the United Kingdom.
    Thank you for the opportunity to be considered for the position of 
United States Ambassador to the United Kingdom. I Look forward to your 
questions.


    The Chairman.  Thank you. We very much appreciate your 
comments and your willingness to serve in this capacity.
    Ms. Johnson, based on my experiences over the last few 
weeks, we could use a little help with celestial navigation on 
health care. [Laughter.]
    Mr. Eisenberg?

 STATEMENT OF LEWIS M. EISENBERG OF FLORIDA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
AMERICA TO THE ITALIAN REPUBLIC, AND TO SERVE CONCURRENTLY AND 
WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE REPUBLIC 
                         OF SAN MARINO

    Mr. Eisenberg. Mr. Chairman, thank you very much, Mr. 
Ranking Member, members of the committee, thank you--K.T. 
McFarland--Senator Marco Rubio, for your kind introduction and 
full description of my background.
    It is with sincere humility that I appear before you today. 
I am most grateful to President Trump to make me his nominee 
for the position of Ambassador to the Italian Republic and the 
Republic of San Marino, without compensation.
    I would also like to express my thanks to Secretary 
Tillerson for his support and confidence. I am humbled for the 
opportunity to be of service to our country, should my 
nomination be confirmed.
    And since Senator Rubio and Senator Lieberman were so kind 
to say a few words, I would like to depart from what I was 
going to do and read my history and my interest in serving our 
country in Italy, although it is interesting to note that 
Senator Menendez, were he here, would testify that I lived many 
years of my life in the State of New Jersey while I worked in 
New York, and I have learned that there are some 20 million 
Americans of Italian descent. I am confident that the largest 
percentage of them live in New Jersey and New York and, hence, 
they are my neighbors and some of my closest friends.
    I am going to depart and talk, rather, on why I want to do 
this in, as Senator Lieberman pointed out, Alan McFarland's and 
my late stage in our distinguished, so far, careers, if 
confirmed.
    This is hard for me, a little bit, to depart from script, 
but it was a day not too dissimilar from this. It was a sunny 
day, not quite so warm, and I had a meeting that had been 
called suddenly and drew me from my original point of 
departure. That morning, when I left that meeting, I was met by 
two police officers from the Port Authority of New York and New 
Jersey who asked me to get into the car, their car, and 
informed me that the Port Authority, the towers, had been 
struck, not by one airplane but by two.
    It began one of the most difficult periods not only in my 
life and your lives but in the lives of our country and the 
world.
    My wife was picked up and brought from New York to our home 
in New Jersey, and I was brought to a makeshift station in 
Jersey City, where we waited for survivors to come, and we 
learned of the hit on the Pentagon and the crash in 
Pennsylvania.
    I was asked by the police to try to organize what staff we 
had from the police who were always there, always professional 
in response.
    And, you know, it is amazing. There are these plates in 
your life that change. There are births. There are deaths. 
There is marriage. There is graduation. It was one of those 
unique shifts in life that has changed us all forever.
    We put together a makeshift organization around trying to 
identify who was lost. I learned that the person who had taken 
my life at Windows on the World had been lost that morning. The 
head of police who had climbed to the 27th floor and called me 
to say he was coming up to get me, learned that I was not 
there, died that day.
    I learned over the subsequent days that we had lost 84 
people with whom I worked and thousands of Americans. The Port 
Authority is a unique bi-state organization. It was my seventh 
year. It was the day before I was to retire from that office. I 
remained for 90 days.
    After that, I traveled to daily from our Jersey 
headquarters to what was then called Ground Zero. I acted as a 
spectator amongst heroes. I served coffee. I gave hugs. I saw 
the families. It hurt.
    The following few months, as my term there came to an end, 
Governor Pataki of New York asked me to serve in the Lower 
Manhattan Development Corp., which was to rebuild lower 
Manhattan, and asked me to chair the Families of Victims 
Committee and Transportation Committee--clearly, the hardest 
task of my life.
    When I left that, I said to the people in those 
commissions, to the families of the Port Authority, to my 
children and grandchildren, who I neglected to introduce as I 
sat down, but who sit behind me, I pledged that if any 
opportunity ever came up for me to contribute to the welfare of 
our country economically or through security, I would do 
whatever it takes.
    If confirmed, I pledge my faithful service, and I thank you 
for this opportunity.
    [Mr. Eisenberg's prepared statement follows:]


                Prepared Statement of Lewis M. Eisenberg

    Mr. Chairman, Ranking Member, members of the committee:
    It is with sincere humility that I appear before you today. I am 
most grateful to be President Trump's Nominee for the position of 
Ambassador to the Italian Republic and the Republic of San Marino. I 
would also like to express my thanks to Secretary Tillerson for his 
support and confidence. I am humbled by the opportunity to be of 
service to our country, should my nomination be confirmed.
    I would also like to introduce those most dear to my heart and 
sitting behind me: My wife, Judy, we recently celebrated our 52nd 
anniversary; and two of my daughters, Lisa Goodwyn and Laura Barr; my 
sons-in-law, Rick Goodwyn and Dr. Kyle Barr; and 3 of our 10 
grandchildren, Henry Goodwyn, Chase Goodwyn, and Jack Balestro. 
Unfortunately, my daughter Stacy Lyle, my son-in-law Paul, and their 
three children could not be here. Judy's parents, Lois Lee and Leonard 
Bierman, and my parents, Estelle and Seymour Eisenberg, all have passed 
away, but have given us the gift of enduring love, hard work and 
guidance, for which we will always be grateful.
    Judy and I met in college in 1962 and were married in 1965. Judy 
worked. I studied. I graduated with an MBA in 1966 and joined Goldman 
Sachs in the summer of that year. It was the beginning of a fifty-year 
career in the world of finance; becoming a partner and co-head of the 
equity division at Goldman Sachs, co-founding Granite Capital 
International Group, becoming a senior advisor at KKR and establishing 
Ironhill Investments LLC. In addition to business, I have always had an 
intense interest and involvement in politics, government service, and 
philanthropy.
    There are certain events, that like shifting Tectonic plates, 
significantly alter the course of one's life.
    In 1994 Governor Christine Todd Whitman appointed me to serve as 
commissioner to the Port Authority of New York and New Jersey, and in 
1995 the Board of Commissioners elected me Chairman.
    As Chairman, I led policy decisions that deepened our ports; 
refurbished our bridges and tunnels; initiated trains running to and 
from our airports; and witnessed
    a police force of 1,500 reduce crime in our region and protect our 
transportation assets. The agency ran on budget with excellent bond 
ratings, and included a team of 7,200 professionals. My leadership role 
of this bi-state agency allowed me to regularly negotiate with unions, 
cities, towns and, of course, between the states of New York and New 
Jersey. I have never worked with a more dedicated or professional 
organization.
    In the late summer of 2001, under the direction of Governor George 
Pataki of New York, I led the agency's successful negotiations for the 
sale of the World Trade Center. At the time, the $3 billion plus real 
estate transaction was the largest in New York history. I was due to 
leave that position on September 12, 2001. On September 10th, my office 
on the 67th floor of Tower One was arranged for a goodbye celebration 
the following morning.
    On the morning of September 11, 2001, I made an unexpected stop to 
meet someone for a quick cup of coffee in midtown Manhattan. As I left 
my meeting, I was greeted by Port Authority police officers who 
informed me that the World Trade Center Towers had been struck by not 
one, but two commercial airliners. I immediately knew we had ``been 
attacked.'' The buildings would come down and, of course, I learned the 
Pentagon had been hit and of the crash of United #93 in Shanksville, 
Pennsylvania.
    The shock of the loss of thousands of lives and the nature and 
extent of these tragedies was hard--very hard--to comprehend. More than 
3,000 lost. Our homeland was hit. The world forever changed.
    For the next ninety days, I led an agency so deeply wounded by 
events, attending many funerals, sometimes three a day, and reacting to 
daily crises.
    Many days I commuted from our Jersey City headquarters to Ground 
Zero--referred to by many in those harrowing weeks as ``the pile''--
where I was but a spectator amidst heroes. We worked and we grieved. We 
lost 84 dedicated colleagues, including our executive director, Neil 
Levin, the secretary of the agency, Danny Bergstein and our 
superintendent of police, Fred Morrone.
    In January of 2002, New York Governor George Pataki appointed me as 
a founding board member of the Lower Manhattan Development Corporation 
(LMDC) and Chairman of the 9/11 Families and Transportation Advisory 
Councils--the most demanding and heart-wrenching challenge I ever had.
    In departing the LMDC in 2003, I pledged to the people of the Port 
Authority, the grieving families and to my wife, children and 
grandchildren that I would, at every opportunity, dedicate myself to 
the service of our country.
    Today, as I sit before you, my commitment remains. U.S. cooperation 
with Italy is at an all-time high, as demonstrated in May when 
President Trump made his visit to Rome a centerpiece of his first trip 
abroad. We are also working with Italy as G-7 President and a member of 
the UN Security Council to advance our shared priorities.
    As a top global partner, Italy has been a leader in the NATO-led 
missions in Afghanistan and in the fight against ISIS in Iraq. In both 
countries, Italy has committed the most troops of any U.S. ally. Italy 
also hosts nearly 30,000 U.S. service members, DoD officials, and 
family members at bases that allow us to operate effectively and 
efficiently across the Mediterranean, the Middle East, and Africa.
    If confirmed, I look forward to further strengthening our security 
cooperation, and working with Italy to continue increasing its defense 
spending consistent with NATO leaders' commitment.
    Italy is also a vital economic partner for the United States. U.S. 
exports to Italy and Italian investment in the United States together 
support over a quarter-million American jobs. If confirmed, I will work 
to increase opportunities for U.S. businesses in Italy.
    Of course, it is the lasting bonds between our peoples that form 
the bedrock of the U.S.-Italy friendship. In addition to the 20 million 
Americans who trace their ancestry to Italy, over a million Italians 
continue to visit the United States each year, and more than four 
million Americans travel to Italy--including over 35,000 U.S. students.
    If confirmed, I will work to sustain our countries' historic ties 
and expand these meaningful connections. I will also dedicate myself to 
continue our cooperation with the Republic of San Marino, whose 
friendship with the United States dates back to 1861, when San Marino's 
heads of state bestowed honorary citizenship on President Abraham 
Lincoln. Today, our two countries are working together on critical 
challenges like combatting money laundering and terrorist financing.
    The staff of the U.S. Mission to Italy--across our embassy and 
three consulates general--works tirelessly to serve American citizens, 
promote
    American business, and advance our cooperation on the full range of 
top global challenges. If confirmed, I look forward to leading this 
extraordinary team.
    I have had the opportunity to visit Italy over the years on 
business and pleasure, with my wife, enjoying the beauty of the 
country. Italy has always occupied a place in our hearts and memories. 
The warmth and spirit of the Italian people, as in America, is founded 
on faith in God, love of country, and an abiding love in family. If 
confirmed, I will strive to continue our cooperative relationships with 
Italy and San Marino, strengthen our economic, security, history, and 
friendship. It would be one of the greatest honors of my life. Thank 
you for your consideration.


    The Chairman.  Thank you for those touching comments and 
your desire to serve in this capacity.
    Ms. McFarland?

   STATEMENT OF KATHLEEN TROIA McFARLAND OF NEW YORK, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF SINGAPORE

    Ms. McFarland. Thank you so much.
    And, Lew, thank you so much for sharing all of that with 
all of us. We were all someplace September 11th, and the fact 
that you were where you were has made our lives a lot better, 
so thank you.
    And thank you, Chairman Corker, Ranking Member Cardin, and 
members of the committee for the honor of addressing you and 
testifying before you for the nomination to be the Ambassador 
to Singapore.
    I would like to thank my friend Joe Lieberman for his very 
kind introduction, and for the family friendship that spans 
over half a century. Senator Lieberman is a man of integrity, 
enormous ability, and true patriotism. He is also a man that 
encourages us all to be better people, and we are all the 
better for having him in our lives.
    I am also deeply humbled by Dr. Henry Kissinger's letter, 
which Senator Lieberman referred to, Dr. Kissinger endorsing my 
nomination to serve in this position. He has been a boss, a 
mentor, and a friend for decades, beginning with my first job 
as a freshman at George Washington University in 1970 and 
continuing through my years at Oxford and MIT, the Reagan 
administration, while I was in cable news, and then coming full 
circle when I joined the Trump administration in the very same 
West Wing office that I had started working in 45 years before.
    I am also thankful for that very strong endorsement from 
the President's current National Security Adviser, General H.R. 
McMaster, who sent a letter to all of you. He is a man of great 
intellect and strategic vision.
    I would also like to thank Secretary Tillerson for the 
opportunity to work with him and the very able people at the 
State Department and at Embassy Singapore.
    But most importantly, I would like to thank President Trump 
for believing in me and selecting me for not just one, but two, 
of the most important positions in his administration.
    But I would not be here today without the encouragement of 
John McCain, because in 2005, the two of us stood in the rain 
outside the Naval Academy football stadium and he encouraged me 
to get back into public life and to run for office. So I think 
all of us wish him and his wonderful family Godspeed, frankly, 
as he slays yet another dragon.
    If I am confirmed, I would not be able to take on this new 
responsibility were it not for the support of my very large 
family, my husband of 33 years, Alan McFarland; our five 
children, Andrew, Gavin, Fiona, Luke, and Camilla; daughter-in-
law, Gretchen; son-in-law Matt Melton; our five grandchildren, 
Arabel, Alasdair, Lachlan, Louisa, and Gigi, almost all of who 
are sitting right behind me.
    If I am confirmed, I also would not presume to take on the 
responsibility without the support of Embassy Singapore. It is 
home to some 19 government agencies, and especially to the 
extraordinarily talented and dedicated Foreign Service Officers 
who serve there. The men and women of Embassy Singapore are the 
very best of the best. And I would consider it an honor if you 
allow me to serve with them.
    So, why Singapore? Three reasons.
    First, our economic relationship is robust. We have had a 
bilateral trade agreement since 2004, and it is the first such 
agreement we have had in Asia. The U.S. has a healthy trade 
surplus of nearly $20 billion in goods and services. U.S. 
businesses invest over $180 billion in Singapore, twice as much 
as we invest in China, five times as much as we invest in 
India. And 4,200 American businesses have headquarters in 
Singapore. More than 30,000 Americans live there.
    Second, we have a close security relationship. When America 
closed our bases in the Philippines in 1990, Singapore stepped 
up to make its facilities available to us. In 1990, we signed 
the U.S.-Singapore Memorandum of Understanding, which was 
expanded by two follow-on agreements since then. Today, our 
Poseidon P-8 aircraft operating out of Singapore. Our littoral 
combat ships rotate out of Changi Naval Base.
    And in fact, the USS Coronado, one of the Navy's newest 
littoral combat ships, is currently in Singapore Harbor, and my 
daughter, sitting right behind me, Lieutenant Fiona McFarland, 
was one of the sailors that took the Coronado from its 
construction in the shipyard through its sea trials and its 
commissioning into the fleet.
    And third, we have a lot in common. We are both melting pot 
nations where people of different races and cultures and 
religions have come together to create a meritocracy and a 
democracy. Our free-market economies are innovative, dynamic, 
entrepreneurial.
    But even so, we urge them to go further in their human 
rights agenda. We urge them to continue their efforts to curb 
human trafficking, building on their adoption in 2015 of the 
Prevention of Human Trafficking Act. And we urge them to expand 
their political freedoms, freedom of speech, assembly, and a 
free press.
    And, Senator Cardin, I listened to your remarks, and I 
agree with them, and I know the power of the bully pulpit.
    And on March 30, 1981, Ronald Reagan spoke to the AFL-CIO 
here in Washington. And in that speech, he added a couple 
sentences, talking to the people in Poland. There were Polish 
dockworkers who were trying to organize, trying to strike, 
under their leader, Lech Walesa.
    President Reagan made a few comments, made a few sentences, 
and nobody remembered them, because within a few minutes, he 
was shot and narrowly survived an assassination attempt.
    But the Polish people heard him. And years later, when the 
Iron Curtain came down and the Polish people were free, Lech 
Walesa, the first President of Poland, said that what kept him 
going and what kept them going in their darkest moments of 
taking on the communist empire were the words of President 
Reagan and others, the encouragement he gave them to keep going 
to demand their rights.
    And so I understand the power of what you are saying, and I 
would hope that, were I confirmed, I would be able to speak out 
and use the bully pulpit in the same kind of way. Thank you.
    So if the Senate does confirm my nomination, I see my job 
as the steward of all aspects of that close relationship with 
Singapore. It is a security relationship, because they stand at 
the entrance to the South China Sea. It is an economic 
relationship, because it is the gateway between East and West. 
And I would do so as the chief proponent of American values.
    I look forward to answering your questions today. And if I 
am confirmed as Ambassador to Singapore, I will look forward to 
working with all the members of this committee, as well as 
within the administration, to advance our interests. Thank you.
    [Ms. McFarland's prepared statement follows:]


                  Prepared Statement of K.T. McFarland

    Thank you, Chairman Corker, Ranking Member Cardin, and members of 
the committee for the honor of allowing me to testify before you here 
today as the nominee to become the United States Ambassador to 
Singapore.
    I'd like to first thank Senator Lieberman for that very kind 
introduction, and for our family friendship that spans over half a 
century. Senator Lieberman is a man of integrity, enormous ability and 
true patriotism. He is also a man that encourages us all to be better 
people, and we are all the better for having him in our lives.
    I am also deeply humbled by Dr. Henry Kissinger's letter of 
endorsement for my nomination to serve in this position--he has been a 
boss, mentor and friend for decades, beginning with my first job in 
Washington, when I was a freshman at George Washington University in 
1970. It continued through my years at Oxford and MIT, during the 
Reagan administration, while I was in cable news and coming full circle 
when I joined the Trump administration--in the same West Wing office 
that I had started working in 45 years before.
    I am also thankful for the strong endorsement from the President's 
National Security Adviser, General H.R. McMaster, most my recent boss. 
He is a man of great intellect and strategic vision. I would also like 
to thank Secretary Tillerson for the opportunity to work with him and 
the very able people at the State Department and at Embassy Singapore.
    But most importantly, I would like to thank President Trump for 
believing in me, and for selecting me for not just one, but two, of the 
most important positions in his administration, first as Deputy 
National Security Adviser, and now as nominee for Ambassador to 
Singapore.
    If I am confirmed, I would not be able to take on this new 
responsibility of moving halfway around the world to promote America's 
interests, were it not for the support of my very large family, 
including my husband, our five children, their spouses and our five 
grandchildren. My husband Alan, and our five children Andrew Gavin, 
Fiona, Luke and Camilla. Daughter in law Gretchen and son-in-law Matt 
Melton our five grandchildren Arabel, Alasdair, Lachlan, Louisa and 
Gigi.
    And if confirmed, I would not dare take on this heavy 
responsibility without the support of Embassy Singapore, home to some 
19 government agencies, and especially to the extraordinarily talented 
and dedicated Foreign Service Officers who serve there. The men and 
women of this Mission are the very best of the best. I would consider 
it an honor to serve with them.
    So, why Singapore? Three reasons:
    First, our economic relationship is robust. We have had a bilateral 
Free Trade Agreement since 2004, our first such agreement with an Asian 
country. The US has a healthy trade surplus of nearly $20 billion in 
goods and services with Singapore. 215,000 American jobs are supported 
by our trade with Singapore. US businesses invest over 180 billion 
dollars in Singapore, twice as much as we invest in China and five 
times our investment in India. 4,200 US business are headquartered in 
Singapore, and more than 30,000 Americans live there.
    Second, we have close security relationship. When America closed 
our bases in the Philippines in the 1990s, Singapore stepped up to make 
its facilities available to the US Navy. In 1990 we signed the U.S.-
Singapore Memorandum of Understanding, which was expanded by follow-on 
agreements in the years since. Today our Poseidon P-8 aircraft operate 
out of Singapore. Our Littoral Combat ships rotate out of Changi Naval 
base. In fact, the USS Coronado, one of the Navy's newest Littoral 
Combat ships, is currently in Singapore--my daughter Navy Lt Fiona 
McFarland was one of the sailors that took the Coronado from its 
construction in the shipyard, through its sea trials, and its 
commissioning into the Fleet.
    Singaporean pilots train with American pilots, Singaporean sailors 
join programs with our sailors, our militaries train together, our 
intelligence, homeland security and law enforcement communities share 
information and best practices.
    Singapore was the first Asian nation to join the Global Coalition 
Against ISIS. When Secretary Tillerson asked me to chair the 68-nation 
ministerial earlier this year, I met with Singapore's foreign minister. 
We discussed our common threats: the spread of radical Islam, North 
Korean nuclear proliferation and competing territorial claims on the 
South China Sea.
    Third, we have a lot in common. We're both melting pot societies 
where people of different races, cultures and religions have come 
together to create a meritocracy, and democracy. Our free market 
economies are innovative, dynamic and entrepreneurial. We're at the 
cutting edge of technology and the digital age. Our nations have been 
beacons of stability and prosperity--and an important example of what 
can be accomplished through hard work, the rule of law and economic 
freedom.
    Even so, we urge them to go further with human rights agenda. We 
urge them to continue their efforts to curb human trafficking, building 
on their adoption in 2015 of the Prevention of Human Trafficking Act. 
We also urge them to expand their political freedoms, freedom of 
speech, assembly and a free press.
    But the Singapore's value to the United States is more than just 
our bilateral relationship, strong as it may be. I'm a New Yorker where 
one of the first rules is location, location, location. Despite its 
small size--Singapore is about four times the size of Washington, DC, 
or about the size of NYC without Staten Island--Singapore sits astride 
one of the most important geostrategically important locations in the 
world. It is the economic gateway between East and West as one of the 
world's most important trade routes--on the Malacca straits. It is the 
world's largest transshipment port.
    Singapore is also the security gateway between East and West as the 
entrance to the South China Sea.
    The world's diplomatic chessboard is being rearranged. Economic 
growth will increasingly come from Asia, especially Southeast Asia. 
North Korea is on the verge of becoming a nuclear weapons state that 
will threaten not just Northeast Asia but South Asia as well, and even 
the US. China is building a blue water navy and flexing its military 
muscles up and down the Asia Pacific. It seeks to disrupt our 
relationships with many Asian nations as it lures them into China's 
orbit. Radical Islamic elements--including terrorists fleeing the 
crumbling Islamic State--are moving to other parts of the world, 
including the Asia Pacific region. With each of these security issues, 
the strength of the U.S.-Singapore relationship will be instrumental to 
our success.
    If the Senate does confirm my nomination, I see my job as the 
steward of all aspects of our close relationship with Singapore: as the 
chief commercial officer in promotion of U.S.-Singapore trade; as the 
chief security officer in maintaining the close U.S.-Singapore security 
and law enforcement relationship; as the chief proponent of American 
values; and as the President's personal representative to one of 
America's most important partners in the region if not the world.
    I look forward to answering your questions today, and if confirmed 
as Ambassador to Singapore, I will work with the members of this 
committee to advance America's interests. Thank you for taking the time 
to consider my nomination. I look forward to answering any questions 
you may have.


    The Chairman.  Thank you.
    Without objection, the two letters you referred to will be 
entered into the record.


    [The information referred to is located at the end of this 
hearing transcript on pages 488-90.]


    The Chairman.  I am personally struck by the deep sense of 
duty that all of you have, your desire to serve our country, 
and look forward to your confirmation.
    I am going to defer my questions and save that time for 
interjections down the road and, with that, turn to Senator 
Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I want to join 
you. Each of you have an impressive background, and your 
testimonies here today have been very much in keeping with the 
impressive backgrounds that you have.
    Mr. Eisenberg, I want to first thank you for your 
testimony. When we think we have tough days here, I am going to 
recall your eyewitness testimony about 9/11 and recognize 
exactly why we are fighting so hard for the security of our 
country. So thank you for sharing that. That was inspirational 
to all of us.
    Mr. Eisenberg. Thank you, Senator Cardin.
    Senator Cardin. Ms. McFarland, I thank you for your 
response in regard to American values and reminding us of some 
of the great moments in American history where our leaders have 
stood up to oppression and stood up to countries that have 
proposed policies that are contrary to universal values.
    And you are right. Singapore is a small country. It is an 
important country. It is one of the economic powers. It is the 
gateway to the China Seas, which is very important for national 
security. It is a democratic country. But it is a country that 
does not protect the human rights of its citizens against 
discrimination. It is a country that does not do well with 
freedom of the press. And it is a country where America's 
spokesperson, our Ambassador, can further the hopes of people 
of Singapore who want to see their country protect these 
rights.
    So I thank you for the statement you made. I am satisfied 
by your response and just want to let you know that you have 
support on both sides of the aisle to reinforce American values 
in Singapore and elsewhere. Of course, the region in which you 
are going to be operating, there are countries that are 
problematic when it comes to basic values. So you are going to 
be operating in an area that your mission there, working with 
other U.S. missions, can very much further U.S. values.
    I will be checking in with you and all of the Ambassadors 
about how we are proceeding on American values, what 
specifically you have done in regard to your speeches, in 
regard to people you meet with, in regard to the priorities 
that you supervise with the people that are there to advance 
American values. So I look forward to that.
    You have a very impressive background. I am going to be 
asking some questions for the record, but I am going to give 
you a chance here to respond to one of the statements you made, 
and it was made in 2013. This is before Russia invaded Ukraine, 
certainly before they interfered in our elections.
    And you said that Mr. Putin is one who really deserves the 
Nobel Peace Prize. I hope your views are not the same today, 
but I wanted to give you a chance to respond to that.
    Ms. McFarland. Senator, thank you, first of all, for the 
very kind words, and thank you also for the chance to set this 
record straight and to put that into context.
    Now I regret that it was a little tongue-in-cheek, but at 
the time, President Obama had laid a redline down on Syria's 
use of chemical weapons against its civilian population and was 
either unable or unwilling to carry out that redline. When 
Secretary Kerry said that perhaps if Syria were to give up its 
chemical weapons, we would think differently, the Russians 
stepped forward and said they would like to help broker that 
deal.
    Secretary Kerry, the Russian Foreign Minister, and the 
Syrians got together. They agreed that Russian would take the 
lead to dismantle Syria's chemical weapons program.
    We now flash forward to today. They were either unable to 
do it or they were unwilling to do it, and Putin deserves no 
prize for that. In fact, when I entered the Trump 
administration, one of the first crises we faced was there were 
the Syrians again, using chemical weapons against women and 
children.
    So I, certainly, feel that, as you pointed out, the 
invasion of Ukraine and the other things that the Russians have 
done, perhaps with President Putin's personal direction, I have 
a very different opinion today.
    Senator Cardin. Thank you for clarifying that.
    Senator Hutchison, I want to pivot to Russian and the 
problems that we are going to have. Clearly, Ukraine is 
continuously under attack by Russia. We know that there is a 
continuing presence in Georgia and Moldova.
    What can NATO do, working with those countries, in order to 
shore up their capacity to deal with the aggression of Russia?
    Senator Hutchison. Well, it is one of NATO's prime focuses, 
the aggression of Russia in Ukraine, of course, Georgia as 
well.
    And I would say, first of all, the European Reassurance 
Initiative is an effort to strengthen the areas that are most 
vulnerable, where we have four battle groups now, one in each 
of the Baltic states plus Poland, and the United States is 
leading in the one in Poland. And Canada is leading as well. 
U.K. is leading as well. And Romania in the other three. So I 
think we are beefing up defenses for an aggressive Russia.
    And secondly, I am pleased that the administration has sent 
to Kurt Volker over to Ukraine now as a special envoy, because 
I think that attention to the whole Russian aggression in 
Ukraine is so important.
    And as NATO has said, there is not going to be business as 
usual with Russia as long as they violate the agreement they 
made in Minsk, which is regarding Ukraine.
    Senator Cardin. I just want to point out that we hope that, 
within a matter of days, we are going to pass legislation 
through both the House and Senate in regard to Russia that 
includes a NATO-like commitment to unify on the misinformation 
attacks that Russia is doing in Europe and their use of the 
Internet. So we are trying to give you additional tools, 
working with our NATO partners, to share best information and 
practices against the aggression of Russia.
    Ms. McFarland. And I think that Congress is doing the right 
thing to put those sanctions in place. I know there are some 
disagreements on some of the language, and everyone is working 
to make sure that it does not have unintended consequences. I 
think it is very important.
    And that is also an initiative that was made in the May 
25th meeting of the heads of state of NATO, that there would be 
more of a focus on this hybrid warfare, the use of Russian 
cyberwarfare to interfere with several democracies within our 
alliance. And that is a focus of NATO, and I think your bill 
and the inclusion of that language will give us more strength.
    Senator Cardin. We will use your endorsement in the House 
to try to get it passed.
    Thank you, Senator.
    The Chairman.  I think it will happen very soon.
    Senator Young?
    Senator Young. Thank you, Chairman.
    I want to thank all our nominees. We have, from my 
perspective, a very competent, qualified panel of distinguished 
individuals, who I think will serve this country well.
    Ms. Hutchison, I enjoyed our visit and would like to 
continue our conversation we began in the office about the INF 
Treaty.
    In July 2014, 3 years ago, our Department of State issued a 
report that said the following: The United States has 
determined that the Russian Federation is in violation of its 
obligations under the Intermediate-Range Nuclear Forces Treaty 
not to possess, produce, or flight test a ground-launched 
cruise missile with a range capability of 500 to 5,550 
kilometers, or to possess or produce launchers of such 
missiles.
    Now State has issued its latest report in April of this 
year against certifying that Russia ``continued to be in 
violation of its obligations under the treaty.''
    While Russia has been developing and testing the missile in 
question for years, on March 8 of this year, General Selva, who 
is the vice chairman of the Joint Chiefs of Staff, as you know, 
testified that Russia deliberately deployed it in order to pose 
a threat to NATO and to facilities within the NATO area of 
responsibility.
    So my question to you is this. Given this threat to our 
troops in Europe and our NATO allies, as the nominee to serve 
as our Ambassador to NATO, do you believe we should take 
tangible and urgent steps to ensure Russia does not gain 
military advantage based on this treaty? Should we compel 
Russia to comply with the treaty?
    Senator Hutchison. Absolutely. We should reinforce our 
efforts to get Russia to comply with the treaty, and it is the 
position of the American Defense Department, State Department, 
that Russia is in violation.
    We are consulting with our allies. There are many views 
about what should be done to continue to encourage and push the 
Russians to meet this agreement.
    But I will say, Senator Young, that we are also beefing up 
defenses, and we have ballistic missile defense capabilities 
that are within the treaty that we have signed, INF. Well, we 
did not, but the treaty. We are complying with it.
    And our efforts to build up our missile defense in several 
countries in the alliance also are a signal to Russia that we 
are serious about this treaty.
    Senator Young. I am encouraged to hear that the pressure 
campaign will ratchet up and will continue and, no doubt, 
evolve. I will look forward to continuing to work with you, 
assuming you are confirmed, which I believe you will be.
    This is a good segue, the latter part of your response to 
my question.
    The INF is it two-part treaty. It is United States. It is 
Russia. But Russia is not complying. So it has become a one-
sided treaty, which defeats the whole idea of a treaty, in a 
sense.
    So meanwhile, according to the Commander of the Pacific 
Command in April, over 90 percent of land-based missile forces 
in China's arsenal fall within this range that is prohibited 
under the INF Treaty. Now, China is not a party to this treaty, 
but the point here is that the world has changed since the INF 
Treaty was signed in 1987.
    It begs the question, if Russia fails to return to 
compliance with the treaty, without delay, do you believe that 
we should withdraw from the treaty?
    Senator Hutchison. That is something that has to be, from 
the NATO standpoint, a consensus. Some of our allies are 
concerned that a withdrawal would make Russia more aggressive.
    I think we have to consult. I know the State Department and 
the Defense Department are looking at what are our best efforts 
to apply what leverage we have for Russia to comply, and I 
think we have to look at all the factors before that decision 
is made.
    Senator Young. That is a fair answer. It is a complicated 
question.
    Senator Hutchison. It is hard.
    Senator Young. We will have to continue to work through 
this, and I hope you will keep the committee informed as these 
assessments continue.
    Senator Hutchison. Of course. They will be, I am sure, on 
everyone's mind. Thank you.
    Senator Young. I would just like to end here.
    Ms. Craft, congratulations to you. I have little doubt that 
you will serve with distinction in this new role.
    I am going to perform a task, since you did invoke the 
Kentucky-Indiana rivalry. I see Coach Calipari behind you, for 
whom I have great respect. But consider this a diplomatic test. 
[Laughter.]
    Senator Young. I am going to play a very brief audio clip, 
and this audio clip is from December 10, 2011. And I would just 
like to get a response. [Audio presentation.]
    Senator Young. You can respond in writing, if you prefer. 
[Laughter.]
    Senator Young. I suspect I will be hearing from thousands 
of Kentucky residents as well.
    I have nothing else, Mr. Chairman. Thank you for indulging 
me.
    Ms. Craft. Thank you, Senator.
    The Chairman.  Thank you. I believe that is a first.
    Senator Menendez?
    Senator Menendez. Mr. Chairman, I have a procedural 
comment, and that is that the breadth and scope of the nominees 
and the countries and institutions for which they have been 
nominated makes it impossible in 5 minutes to pursue the issues 
I certainly want to. I do not know how others feel.
    So to the extent that there is the opportunity for second 
round, I would urge you. And if not, I am going to be looking 
for very substantive answers to questions for the record, in 
order to be able to determine to move forward with the 
nominees.
    The Chairman.  I would be glad to accommodate both.
    Senator Menendez. Thank you.
    Congratulations to all of you.
    Senator Hutchison, it is good to see you again.
    Two quick questions. Do you believe NATO is obsolete? And 
secondly, do we have an unequivocal commitment to Article 5, in 
your view?
    Senator Hutchison. Absolutely. The President has come to 
see that NATO is important.
    Senator Menendez. Which one is absolute? Which one is 
absolute, my first question?
    Senator Hutchison. The commitment to Article 5.
    Well, first of all, NATO is not obsolete, and I think the 
President has acknowledged that he, after meeting with many of 
the Defense--including General Mattis' appointment to the 
Department of Defense, with Rex Tillerson, the Secretary of 
State, and with Secretary General Stoltenberg, I think the 
President realized immediately that it is an important and 
successful alliance.
    He has made the commitment, of course, to America's support 
of Article 5, and so has the Vice President, the Secretary of 
Defense, and the Secretary of State.
    Senator Menendez. Your role in asserting that will be very 
important, and I appreciate your service.
    Senator Hutchison. Absolutely.
    Senator Menendez. Ms. McFarland, judgment in a United 
States Ambassador is incredibly important, so I know that 
Senator Cardin lightly talked with you about your suggestion at 
one point that Putin is the one who really deserves a Nobel 
Peace Prize.
    But I look at a regime that actually bombs indiscriminately 
citizens in Syria, that obviously either did not have the 
ability or actually, I believe, had the complicity to allow the 
Syrians to go ahead and continue with their chemical weapons.
    I look at some of your other comments that have been made 
in the past.
    On Islam, terrorism, the people of the Middle East: ``Look, 
they're Arabs. They're not going to say to your face something 
they know is going to upset you.''
    On waterboarding: ``Even if it's torture, it's probably 
worth doing.''
    On President Obama: ``To me, it's a dereliction of duty. 
What was this president doing? Well, he was playing a lot of 
golf this summer''--that sounds very familiar to what is going 
on this summer--``but he clearly was not attending to the 
defense of the United States.''
    And I could go on and on.
    When you are, if confirmed, going to a country that is 
critically important in the South China Sea, how we deal with 
that issue, who has questions on human trafficking, who also 
has a significant population that is part of our challenge in 
the world, can you tell me that your judgment is better than 
the comments that you have made in the past?
    Ms. McFarland. Thank you very much for that question, 
Senator Menendez.
    I think it is important, for me, anyway, to think of this 
as a different kind of position. In the past, when I have been 
a media commentator, it was to draw certain points and perhaps 
points drawn very sharply. As an ambassador, if I am confirmed, 
it is a diplomatic mission. It is to take direction from the 
Secretary of State and the President, and what their positions 
are, the United States Government positions.
    I would feel that that is the image I want to project.
    As far as representing American values and judgment and the 
whole world of an ambassador in promoting American interests 
and the American way of life and America's core values, those I 
would promote absolutely.
    You know, America is a big tent. We have a big roof. And I 
would welcome all under my roof.
    Senator Menendez. A United States Ambassador must represent 
that entirety.
    Ms. McFarland. Absolutely.
    Senator Menendez. Let me ask you, if you were to be 
confirmed, how would you work to ensure that Singapore and the 
United States work productively to address tensions and seek 
common interests in the South China Sea, particularly at a time 
that Singapore continues to think about its balance of its 
interests between China and the United States?
    Ms. McFarland. It is a topic that I have actually discussed 
with the Singapore Foreign Minister when he was in Washington, 
the greater topic of not only the U.S.-Singapore security 
relationship but the South China Sea, and what does that 
represent?
    Singapore has said that on any of these contested islands, 
these militarized, contested islands, that international law 
should prevail. It has also said that it is in a neighborhood 
where they have to recognize the interests of all of the 
countries.
    The fact that they have allowed us and, in fact, embraced 
us, to have rotational deployment of our aircraft, our military 
vessels, in the various Singapore naval bases I think is an 
indication that they want to work with us.
    Our sailors train together. They buy their military 
equipment from the United States. And so it is a security 
relationship that I would, if I am confirmed, would want to not 
only endorse as it is now but strengthen it.
    Senator Menendez. My question, maybe unartfully phrased, is 
that, how will you help tilt that balancing that they are doing 
between China and the United States in our favor?
    Ms. McFarland. The Singaporean Government, because we have 
a lot of the shared values, not all share values, but the 
shared values of a democracy and the rule of law, they have 
indicated, in many ways, that they value our relationship and 
do not want us to leave.
    One of the things that I think is so important, and why I 
was interested in Singapore for myself, as somebody who has 
spent a lot of time studying Asia, is because I look at not 
just Singapore but that entire region as critical to American 
national security. They are the swing states.
    And if Singapore and the others, if they conclude that we 
are not interested in being an Indo-Asia-Pacific power, if 
America is a Nation in decline--as often the Chinese are 
encouraging them to say, we are the rising power, America is a 
declining power. And so a lot of the importance of the mission 
that I would have, it is not just the normal bilateral 
relationship, but also encouraging them to believe that we are 
there. We take this region seriously.
    The fact that Singapore is going to be the chairman in 2018 
of ASEAN, that they want to take ASEAN the direction of cyber 
technology, cybertheft, cyber defense. That is something that 
we could encourage with them. They have said that, as they are 
looking for a cyber partner, they look to the United States, 
not others.
    So I think that there are opportunities there to increase 
that security relationship with them, and I would hope that 
that would be one of my primary missions, is not only the 
economic interests that we have not Singapore but the strategic 
interests.
    It is the gateway to the South China Sea, which is a 
military trade route as well as an economic trade route, but it 
is also a security route.
    Senator Menendez. Mr. Chairman, I do not want my fellow New 
Jerseyans to think I am ignoring them, but since my time has 
expired, if you do have a second round, I have a series of 
questions for the other candidates.
    The Chairman.  Absolutely. Thank you, sir.
    Senator Rubio?
    Senator Rubio. Thank you all for being here.
    Ms. Craft, let me begin, as you know, President Trump 
intends to conduct negotiations to modernize NAFTA. What do you 
see as your role in that modernization negotiation?
    Ms. Craft. Thank you for your question, Senator Rubio. 
Twenty-three years ago, when NAFTA was signed, there were so 
many aspects of the economy that were not yet conceptualized. 
And not being confirmed, I have not had a role in writing any 
of the policies.
    However, if confirmed, I am looking forward to working 
closely with Ambassador Lighthizer and Secretary of Commerce 
Ross to promote the priorities for the NAFTA negotiations.
    Senator Rubio. Mr. Johnson, as you know, as I shared with 
you yesterday, because of my lifelong being a fan of the Miami 
Dolphins, support for your nomination due to your relationship 
with the New York Jets is painful and difficult, but I am 
willing to do it for the good of the country.
    I will, however, say that I think you and I agree that the 
country would be well-served if a certain Thomas Brady of 
Massachusetts were nominated Ambassador of Brazil. [Laughter.]
    Senator Rubio. Perhaps that could be arranged before 
September of this year. [Laughter.]
    Mr. Johnson. I am glad we got that out.
    Senator Rubio. I do not know why people are laughing. I am 
very serious about that. [Laughter.]
    Senator Rubio. I see that Senator Markey is not here to 
object, and Senator Shaheen, so I think we can get this done.
    Now, the U.S.-U.K. relationship, what do you feel--
obviously, is it very closely link, historic. Our security, I 
do not know that there is a rival to it, in terms of 
relationship between the United States and the United Kingdom.
    What do you see as the most important issue today in our 
bilateral relationship?
    Mr. Johnson. Well, if I look at that relationship from a 
macro standpoint, it is preserving and protecting and enhancing 
that relationship, which has been very valuable to the U.S. for 
a long time, going back to World War II. But actually, going 
back--it was coined World War II by Winston Churchill. But it 
was a relationship that is really going back even further than 
that.
    It is one based on trust and working together through thick 
and thin for many, many decades. The security relationship is 
fundamental to that, and that is based on trust and confidence, 
and sharing information and gathering information, being very 
innovative to the task at hand, which keeps changing. The world 
is getting more complicated with cyber and various types of 
terrorism that are occurring now. So it is challenging us to be 
innovative and creative and working together even stronger.
    So this will continue to be an important relationship, very 
important.
    Senator Rubio. Mr. Eisenberg, as I said, I am proud to have 
introduced you today. We have known each other for a while. I 
think above all else, you can confirm that, unlike New York and 
New Jersey, it does not snow in Florida in December and 
January. Just a plug.
    But I will say this. I want to ask you this, because this 
is often not pointed out. Italy has the eighth largest economy 
in the world, in essence, a $2 trillion GDP. It is basically 
the equivalent of the Russian economy, which receives an 
extraordinary amount of attention. But also, I think, it is a 
testament to their capabilities.
    So I would ask if you are prepared to commit to press our 
Italian partners to increase their defense spending as part of 
their obligations to our treaty alliance through NATO. They 
certainly have the capability to do it. I think among friends 
and allies, that is a point that has been stressed by multiple 
administrations. There has been a lot made of this 
administration's insistence on that. But you go back in the 
record, you will see multiple Presidents have made the same 
request.
    We do not mean this in an adversarial way, obviously, 
toward our partners in Italy, but at $2 trillion, that is a 
significant economy with the capability to contribute to our 
mutual defense.
    And so I would just ask for your commitment that we would 
continue to further what has been not just this 
administration's position, but what they agreed to do and what 
multiple administrations before us have asked of our partners 
as well.
    Mr. Eisenberg. Of course, my answer to that is I will 
continue to strive to have Italy take up a greater portion of 
the expense for defense.
    But I would like to note that, as we speak, Italy is 
defending the Mediterranean that is now experiencing probably 
the most dramatic immigration and refugee problem in Europe. 
They had 180,000 depart from Libya last year with a significant 
amount of casualties, and are incurring great and unusual 
expense.
    That number is being exceeded this year. They will probably 
take in over 200,000. And they are retaining, within Italy, in 
a very humane way, monitoring trafficking, with our help and 
support, almost 90 percent of that immigration and refugee 
problem, while at the same time, they maintain 30,000 U.S. 
troops on five distinct military bases. They have the second 
largest commitment in both Iraq and Afghanistan of troops on 
the ground.
    So in many ways, their efforts and what they have achieved 
is quite meaningful. They have committed as recently as the G-
7, and I think afterward at a meeting between the Prime 
Minister and the President here, that they would continue to 
honor their agreement to move to the NATO requirement of 2 
percent by 2024. And they have moved in that direction 
meaningfully in the last year.
    The Chairman.  Thank you, sir.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Congratulations to each of the witnesses. These are very 
important relationships.
    I want to start with Ms. Craft, just quickly. I am going to 
be with some great Kentuckians tomorrow. My wife is from Wise 
County, she and her family on her dad's side, which is right 
across the border, I think, from Harlan, Letcher County, and 
Pike County.
    And tomorrow and over the weekend, there is an amazing 
event that is called the Remote Access Medical Clinic, where 
people who do not have health insurance gather from all over 
the Southeast of the United States to get free treatment from 
volunteer doctors and nurses. It is an amazingly uplifting 
event because of the hundreds of volunteers, many from Kentucky 
and Virginia and elsewhere. And it is an amazingly 
heartbreaking event.
    Every time I go, and I have been going since 2002 to work 
the registration table, it reminds me of when I was a 
missionary in Honduras, and that was the way that health care 
was done in that country, which is the second poorest country 
in the Americas. And to see it right in my own Commonwealth, it 
is heartbreaking.
    But the valor of the Kentuckians who participate will be a 
really impressive thing, and I am looking forward to being with 
them tomorrow.
    Kay Bailey, congratulations. I am so excited you are the 
nominee. I will be real blunt. My oldest was deployed with the 
European Reassurance Initiative on the border with Russia last 
year, and when he was there doing an exercise with Lithuania 
and others, Russia was engaged in cyberattacking our election, 
Russia was engaged in an amazing effort to cyberattack an 
election in Montenegro, and their Plan B was to assassinate the 
Prime Minister, assassinate opposition leaders, all to try to 
keep Montenegro out of NATO.
    Russia is engaged now in activities in Lithuania to 
destabilize NATO exercises that are happening there.
    Watching that going on, and, frankly, I was very, very 
worried in the early days of this administration to hear the 
President basically suggest that Russia was not doing anything 
wrong, but also to say that NATO was obsolete when the entire 
1,200 members of my son's battalion were deployed there in 
harm's way doing work that I thought was important.
    Your nomination sends a signal that the NATO relationship 
is an important one. I do not think the administration would 
have asked somebody of your qualification if they did not mean 
to send a signal that, whatever the earlier statements or 
thoughts about NATO, there is now a commitment.
    And as you shared with me yesterday, if you wondered 
whether there was a commitment to the seriousness of the 
relationship, you would not have accepted the nomination.
    So I am very, very happy to see you before this committee, 
and I am very anxious to get you confirmed as quickly as we 
can, because I think this is incredibly important.
    To Ms. McFarland, Senator Menendez asked you some questions 
about statements. It is a little bit of a burden being a 
commenter. You comment sharply, and your statements are mostly 
self-explanatory. But there was one that I was curious about.
    When there was press around your earlier position on the 
National Security Council, one of the things that was often 
mentioned in accounts that I was curious about, because it was 
never a quote from you, so I do not even know if it was 
accurate, is that you were in favor of the Brexit vote. You 
approved and were happy about the outcome of the Brexit vote.
    I was just curious if that was accurate reporting. And 
given that we have a U.K. Ambassador nominee and will have an 
EU nominee before us soon, I was curious, if that is true, what 
did you think was positive about that vote?
    Ms. McFarland. I do not specifically remember saying it in 
those terms, but at the time, I said that--the important thing 
is for the British people to decide what they want to do. I do 
not think it is for anybody to tell them what to do, and was 
encouraged by the fact that the British people, in a very large 
percentage and large numbers, were taking it on their own 
authority to make a decision.
    Senator Kaine. So you did not have a personal opinion 
yourself about whether the removal of the U.K. from the 
European Union was a good thing or a bad thing?
    Ms. McFarland. I do remember making the statement that--
and, again, I do not want to--I know this is an important 
issue. I do not want to speak off the top of my head. But I did 
say something along the lines that, if the British do choose to 
do that on their own, that that might present opportunities for 
them in bilateral trade agreements with the United States or 
other relationships.
    Senator Kaine. I do not want to catch you flatfooted on 
this, either, so I may ask that in writing----
    Ms. McFarland. Sure.
    Senator Kaine [continuing]. With a reference, and have you 
follow up on that.
    Thank you, Mr. Chair.
    The Chairman.  Thank you, Senator.
    Senator Paul?
    Senator Paul. Congratulations to all of you for your 
nominations. As a proud father of two Kentucky Wildcats, 
particular congratulations to my fellow Kentuckian, Kelly 
Knight.
    And sometimes when we put things forward, we do not get the 
whole truth. And so we heard a little bit from the Senator from 
Indiana about a particular game in 2011. [Laughter.]
    Senator Paul. But I think there was a rematch later in the 
NCAA finals. Do you remember who won the rematch?
    Ms. Knight. Of course. The Kentucky Wildcats.
    Senator Paul. And then do you remember who were the 
national champions that year?
    Ms. Knight. The Kentucky Wildcats.
    Senator Paul. The Kentucky Wildcats. Absolutely. But I 
think we have set the record straight there.
    I have a little bit more of a serious sort of point, and 
then maybe we will see if we get a response.
    I think it is important that we remember that the State 
Department is not the Pentagon. We have a Pentagon. We have the 
mightiest military in the world. And for most of you, and we 
may exclude NATO to a certain extent, but for most of you, your 
job is with the State Department, not the Pentagon, and there 
is a different role.
    I mean, the Pentagon is to have the mightiest defense and 
to be able to wipe out any enemy that should strike us, to be 
prepared, to try to deter attack, et cetera.
    But the job of the State Department is different. Your job 
is one of friendship and trade. And you are going to be going 
to friendly countries. Obviously, I jokingly say I do not want 
war with Canada or Italy or England.
    But it is important that your role in the world, as you are 
out there mixing with other Ambassadors in your region of the 
world, your role is to foster peace. I think that is important.
    Ms. McFarland I think was involved with Secretary 
Weinberger and the Weinberger Doctrine, which she knows that I 
am aware of.
    Part of that was that we only go to war under certain 
circumstances. It was not that we are ever gleeful for war. It 
was that we restrict and restrain ourselves to only go into 
war. One of the points of the Weinberger Doctrine is we go to 
war as last resort. One was that we go for vital national 
interests.
    I think sometimes we get sloppy with that, and we just say 
everything is in our vital national interests. And that is 
really a conclusion that requires debate and the facts on both 
sides before we go.
    But my hope is always that there is a sufficient voice for 
war being the last resort. I am not saying we never go, but the 
State Department is supposed to be part of that, to a certain 
extent at NATO also. It is about preparedness, but still the 
goal of NATO is defense, not offense.
    I just hope all of you will remember that and realize that 
really part of your role is to try to preserve peace and keep 
peace.
    And if you would like to, since I named you, Ms. McFarland, 
you are welcome to respond about the Weinberger Doctrine, your 
role, or what your thoughts are about your role in the world or 
our role in the world.
    Ms. McFarland. Thank you very much, Senator Paul. You and I 
have had this conversation a number of times about the 
Weinberger Doctrine.
    I was privileged enough to be at the Pentagon in the Reagan 
administration and work for Secretary Weinberger and help craft 
the speech that he delivered that was the Weinberger Doctrine.
    There were several points do it. These were guidelines of 
when the United States should consider going to war or using 
combat forces overseas.
    One of the considerations was that we would do so to 
protect our vital national interests, that we would do so with 
a clear idea of what was required, and that we would also have 
the full support of the American people, and, finally, that our 
objective would be to win and to prevail.
    So I know that is something that has guided your own 
thinking on national security issues, and I thank you for the 
opportunity to discuss it, Senator.
    The Chairman.  Thank you, sir.
    Senator Coons?
    Senator Coons. Thank you, Mr. Chairman.
    Thank you to all the nominees for your willingness to 
serve, and for the opportunity to be with you here today.
    Senator Hutchison, thanks for the opportunity for a great 
conversation yesterday about the importance of NATO and the 
role to which you have been nominated.
    Let me just ask again here in this setting, how do you 
intend to convince our NATO allies to stay the course with us 
in Afghanistan, given how much they have already sacrificed, 
given how uncertain the path is ahead? I would be interested in 
how you think, together, we will make that argument to our 
vital NATO allies.
    Senator Hutchison. Yes, thank you very much. Thank you for 
meeting with me.
    Senator Coons, Afghanistan is hard. It is hard for America, 
and it is very hard for all of our allies. But we know that Al 
Qaeda is rising up in Afghanistan. We know that that is a 
common thread. It is a common threat to all of us.
    And our allies have never flagged. When we have asked for 
certain numbers of increased help or capacity, they have 
stepped up. They have stepped up for 15 years in Afghanistan. 
Our allies have been with us side-by-side.
    They are stepping up now in Iraq, because we are regrouping 
and doing more in Iraq. These are very tough duties, but they 
are there.
    And to say, what are you going to do to keep them? I think 
they have been there. I think that they have been with us. And 
it is our common threat.
    Senator Coons. I agree.
    Senator Hutchison. Al Qaeda is our common threat. ISIS is 
our common threat.
    So I will appreciate them and continue to encourage all of 
us to stay firm.
    Senator Coons. Thank you. I have two more questions, if I 
might. First to you, Senator.
    How would you also help shape NATO's cyber strategy? We 
have seen cyberattacks in the past on our now-NATO ally, 
Estonia. Many of us are concerned about the cyber actions by 
Russia in American domestic matters, as well as the matters 
involving our key allies.
    Does a cyberattack on a NATO ally trigger Article 5? And if 
so, how should the alliance respond? And how do we strengthen 
cyber?
    And I have one more question I would like to get to, if I 
might.
    Senator Hutchison. I think we have to see what kind of 
attack we would be addressing before we talk about whether it 
would invoke Article 5. However, the Leaders' Meeting in May, 
as well as the previous defense meetings of NATO, have made it 
more of a focus and more of an awareness of the cyberattacks of 
Russia and the interference with many processes and many of our 
allied countries.
    And I think cyber is going to continue to be more of an 
emphasis of NATO as we go forward, but I think the leaders have 
already staked out that as a new focus.
    Senator Coons. Thank you, Senator.
    If I might, Ms. McFarland, thank you for your service and 
your willingness to step up to this role. I had the chance, the 
honor, to travel with Senator McCain to Singapore, along with 
Senator Barrasso, to the regional security conference, and was 
struck at how broadly our regional allies and partners 
expressed concern at withdrawal from TPP.
    How will the Trump administration, how would you, if 
confirmed as Ambassador, undertake economic statecraft? And 
given some grave concerns, I think, about security issues in 
the Philippines, and elsewhere in the region where ISIS is 
making some advances, how will you work with your counterparts 
to confront the growing threat of terrorism in the region?
    Ms. McFarland. Thank you very much for that question, and 
particularly for your interest in Asia, Southeast Asia.
    The President, first of all, we have a bilateral trade 
agreement with Singapore, as you know. It is the first one we 
have had with any Asian nation, and it has been very successful 
for the two of us.
    When the administration pulled out of the TPP, I had the 
opportunity to meet with the Singapore Foreign Minister, not 
knowing that I was eventually going to be sitting before you, 
hoping to be confirmed to be the Ambassador to Singapore.
    And he said, you know, we understand. We have a strong and 
robust economic relationship. We want to continue it.
    What the administration has said is that the U.S.-Singapore 
Free Trade Agreement is one that would be a foundation. It 
would be something that they would use as a template to have 
bilateral economic relations with other countries.
    And when President Trump withdrew from TPP, he said that he 
felt that the best interests of the United States would be 
served by bilateral trade agreements. I have been out of the 
administration for 2 months, so I am not sure where the issues 
go, but that would be the first.
    And the second one is the security relationship. One of the 
reasons that I was interested in this position, and when it was 
offered to me, was excited about it, is because I, too, had 
heard in my position as the Deputy National Security Adviser, I 
had heard from a number of counterparts from other countries, 
and they all made the same point that you are making, that 
there was concern that the United States was lessening its 
commitment to the region, was not as concerned about what was 
happening in the South China Sea, that they saw an increasingly 
aggressive China building a blue water navy and kind of 
muscling its way across the whole Asia-Pacific region.
    So one of the things that I would hope to do with 
Singapore, and then work with the other Ambassadors, if they 
are confirmed, if we are all confirmed, the other Ambassadors 
in the Southeast Asia region, would be to put this at the 
forefront.
    The Vice President went to Indonesia, met with the ASEAN. 
President Trump will make a trip to the Far East in a similar 
capacity.
    So I think part of it is just to show our interests, our 
commitment, and then to keep--let them know that we are not a 
waning power, that the United States is not a declining power, 
that this is not an inevitable thing that is going to happen. 
We are just as committed to the region as we have ever been, 
and we continue to be even more committed to the region. And 
also that we are a power that is not in decline. America's 
greatest days are ahead of it, and we hope that they will be 
with us.
    Senator Coons. Well, I hope to have the opportunity to work 
with each of you and the countries to which you have been 
nominated, to advance that I think shared and important goal, 
which is to continue to strengthen our alliances, to strengthen 
our role in the world, and to work in a bipartisan way in that.
    And, Mr. Chairman, you have played a critical role in this 
committee in advancing that vision, so thank you.
    And to your families, thank you for supporting your public 
service.
    Mr. Chairman, thank you.
    The Chairman.  Thank you, sir.
    Senator Barrasso?
    Senator Barrasso. Very much, Mr. Chairman.
    Ms. Craft, thank you very much for being here. 
Congratulations on your nomination.
    Ms. Craft. Thank you.
    Senator Barrasso. The thing about Canada, it is the second 
largest trading partner of the United States. It is Wyoming's 
second largest export market. In 2016, two-way, cross-border 
goods and services traded between the United States and Canada 
was $1.7 billion.
    So the two nations have a highly integrated energy market. 
We work closely together. Canada is the largest supplier of 
U.S. energy and the largest recipient of U.S. energy exports.
    Can you talk just a little bit, as the Ambassador, about 
how you will promote American exports and work to further 
expand the trade relationship between our two countries?
    Ms. Craft. Thank you for your question, Senator.
    If confirmed, I am going to work very closely with 
Ambassador Lighthizer and Secretary of Commerce Ross to promote 
the priorities of the Trump administration's agenda with NAFTA 
and also with the different areas of softwood timber, the dairy 
industry, the poultry industry, and the other industries that 
would be a benefit to the American prosperity and the American 
people, both small businesses and large businesses.
    Senator Barrasso. The same follow up with you, Mr. Johnson. 
The United States and United Kingdom, an incredibly significant 
trade and investment relationship. U.S. imports from the United 
Kingdom were worth--as well as the other way around.
    Can you talk a little bit about, as the United Kingdom is 
leaving European Union, what opportunities exist? What 
challenges exist for great trade and investment between the two 
countries?
    Mr. Johnson. Thank you very much for that question, 
Senator.
    If confirmed, I will be working on Brexit and trying to 
help the Congress, the President, and Secretary Tillerson, 
figure out what opportunities and challenges that we can have 
access to.
    You are right, exactly, the relationship has been robust. 
It is not as big as Canada. I think it is about $200 million in 
trades and services. There are a million jobs on either side of 
the Atlantic that rely on that relationship. And our job is to 
encourage, as I said in my opening testimony. The overall 
relationship with the U.K. has to be enhanced. We want to 
enhance it and leave it better than we found it. A big part of 
that is trade. I do not know if that is a direct answer.
    Senator Barrasso. Thank you.
    Mr. Johnson. Thank you.
    Senator Barrasso. Ms. McFarland, I just want to talk about 
kind of the area of the world that you have been nominated to 
serve. I was in Singapore last month with John McCain, who you 
mentioned how he had encouraged you, for your service.
    And we went to Singapore for an international defense 
conference, security conference, following the time that we 
went to Vietnam. So we had just been to Singapore, meeting with 
the leaders there.
    But Singapore really has been, one, a strong partner of the 
United States in trade as well as in security. It is also a 
major focal point in that whole part of the world.
    So can you talk a little bit about how important the U.S. 
presence is in that region, specifically in Singapore? And as 
Ambassador, how do you plan to further strengthen the 
cooperation between the United States and Singapore?
    Ms. McFarland. Thank you, Senator Barrasso. And thank you, 
too, for your interest in that part of the world. I think you 
and I both agree that it is going to be an extremely important 
part of America's future as well.
    A lot of economic estimates are that 60 percent, even as 
much as 80 percent of the world's economic growth in the next 
decade are going to come from Southeast Asia and that region.
    The United States has 4,200 American companies that are 
headquartered in Singapore. That is up from about 3,700 about 2 
years ago. And Singapore acts as the hub of a lot of the 
economic interests throughout the region.
    So in other words, if there is an American company 
headquartered in Singapore, it will do business in Singapore, 
but it also may do business in other nations in Southeast Asia, 
Malaysia, Indonesia, et cetera.
    So given that trend, I think it is an important place for 
the United States to be to advance those commercial interests. 
As good as they are now, they could be a lot better. And it is 
an area of the world that we do not want to forsake, or that we 
do not want to be edged out of as that area of the world 
increases in its economic relationship.
    As far as all the other parts, it also remains a hub for 
security relations. If you look at a map, the Strait of Malacca 
is the gateway. All trade that is going from Europe, from the 
Middle East, energy trade, has to go past Singapore on its way 
to all of Asia. American trade going from the West Coast goes 
in the opposite direction through Singapore.
    So it is important for us to have an economic presence 
there, but also have a security presence there.
    Singapore understands its responsibilities. As a small 
nation-state, it is only 5.5 million people. Its landmass is 
about four times the size of Washington, or for a New Yorker 
like me, it is like New York City without Staten Island. So it 
is a small place, but it plays big. And it plays particularly 
big in the security relationship.
    Singapore spends close to 4 percent of its GNP on defense. 
And out of every--its entire national budget is spent on a 
number of things, but $1 out of every $3 or $4 is spent on 
defense. A lot of that military equipment that they buy is 
American military equipment, which, as you know, Singapore buys 
planes from your part of the world and trains in Wyoming.
    The Singapore military, because it is a small area, they 
have bases elsewhere. They have training facilities in the 
United States and in other parts of the world that they then 
use that equipment as they come home to Singapore.
    So I think it is those things. It is the fact that it may 
be small, it may have a small population, but it is a hub for 
so many things.
    And it is an important part of the world that we need to be 
in, and particularly, as you mentioned, as other countries look 
and wonder about our commitment, because those are the swing 
states. If we are somehow not present economically, are not 
present in a security sense, that is a part of the world that 
make its own separate deal, and it is a part of the world that 
we may not be heavily involved in for hundreds of years.
    Senator Barrasso. Well, thank you very much. 
Congratulations to each and every one of you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    I have been informed of Senator Rubio's earlier comments, 
and I just want to say that I do not think that is going to be 
possible because co-owner Robert Kraft is a very close friend 
of Donald Trump's, so I do not think there is any chance of Tom 
Brady leaving the country until he has won at least two or 
three more Super Bowl championships. And at that point, it is 
whatever he wants, okay? So that is our approach.
    You understand that, Mr. Johnson, very much, 
notwithstanding the competitive advantage the Jets would 
receive.
    Mr. Johnson. I am open to it.
    Senator Markey. Let me ask you, Ms. McFarland, the rigorous 
enforcement of sanctions on North Korea is essential to get 
North Korea to the table for serious negotiations of our 
denuclearization of the peninsula. Singapore has an important 
role in the effort.
    The United Nations panel of experts set up to monitor North 
Korean compliance with international sanctions has assessed 
that North Korea continues to evade sanctions through the use 
of front companies, including in Singapore.
    That panel's report linked a Singaporean company to a North 
Korean firm that is involved in the sale of conventional arms. 
The company, Glocom, was identified as a front run by North 
Korean intelligence agencies that sell equipment in violation 
of U.N. sanctions.
    More recently, the research organization NK News published 
a comprehensive report indicating that a Singapore-based 
company named OCN Singapore is involved in importing luxury 
goods into North Korea in defiance of U.N. Security Council 
sanctions.
    Singapore needs to fully investigate those allegations and 
ensure that North Korea is not using its open financial and 
trading environment to evade sanctions.
    If you are confirmed, Ms. McFarland, would you ensure that 
the strongest possible message is sent from the United States 
to the Singapore Government that we expect full compliance with 
the North Korean sanctions?
    Ms. McFarland. Absolutely. As President Trump has said, 
North Korea's nuclear proliferation program is one of the most 
serious and immediate crises we face. And whether it is the 
financial technology issues, the fintech, or whether it is the 
counterproliferation transshipment points that Singapore is for 
goods that might be going to North Korea of any type, it is 
important not only that we have these international agreements, 
but that we enforce them.
    So you can have complete confidence that, if I am 
confirmed, I will pursue that. Thank you.
    Senator Markey. It is hard to get the attention of North 
Korea, if China is not imposing tough sanctions. There has been 
a 37 percent increase in trade between China and North Korea 
over last year. The same thing is true for some of these other 
countries.
    We just have to make sure that the pressure is intensified, 
so that North Korea does come to the bargaining table.
    Mr. Johnson, the issue of Northern Ireland is very 
important to tens of millions of Irish in the United States. 
Following his nomination by President Clinton, Senator George 
Mitchell chaired the all-party negotiations that ultimately 
produced the Good Friday Agreement of 1998. It ended years of 
bloodshed.
    But a crisis in Northern Ireland has prevented the 
formation of a government there since January when Martin 
McGuinness resigned as Deputy First Minister 2 months before he 
died.
    Since January, Sinn Fein and the Democratic Unionist Party 
have been in difficult talks to form a new government.
    The June election in the U.K. has resulted in Prime 
Minister May's Conservative Party forming a coalition with the 
Democratic Unionist Party. The DUP was the only party in 
Northern Ireland that opposed the Good Friday Agreement, 
although its founder, Ian Paisley, ultimately agreed to a 
government in which he served as First Minister and McGuinness 
served as Deputy First Minister.
    Prime Minister May's coalition was formed with the DUP, and 
it is particularly troubling because the British Government is 
the guarantor of the Good Friday Agreement and is responsible 
for mediating the political crisis in Belfast.
    So all of these factors raise serious concerns, especially 
since the Northern Irish voted overwhelmingly against Brexit, 
even as there is a goal set by Prime Minister May that she 
wants a hard Brexit, which causes real problems, potentially, 
in Northern Ireland.
    Could you talk a little bit about that issue and how you 
would represent the United States?
    Mr. Johnson. Senator, I thank you for that very complicated 
question, because it reflects the complications of what is 
happening in Northern Ireland and its relation to both the U.S. 
and the U.K.
    The Good Friday agreements, as you pointed out, that were 
shepherded by the U.S., by the U.K., and by the Irish 
themselves led to roughly 19 years, so far, of peace, relative 
peace and tranquility from a period that was very turbulent.
    These are complicated issues, particularly now, if you 
inject Brexit into the equation as a factor, as a major factor. 
You have issues, border issues, trade issues, immigration 
issues. A lot have been done, as you commented on, with 
supporting jobs along the border to harmonize the relationship 
and to try to have a better understanding between secular 
beliefs that were the cause of some of the unrest.
    I pledge to you, because I know this is an important issue, 
that, if confirmed, I will spend a lot of time trying to do 
anything I can do to facilitate the establishment of an 
understanding and try to pick up on what you did in 1998 to 
establish this. Because it is in the U.S.'s best interests to 
have a stable U.K., including Northern Ireland.
    Senator Markey. So I thank you for that. The more attention 
you pay to it, I think, the greater the likelihood that the 
peace will hold. It is the economic integration largely, the 
customs integration issues, the security issues, that have 
really helped to integrate Northern Ireland into Europe, and 
with Ireland itself.
    So the more that Brexit kind of starts to fool with that 
formula is the more it could lead to a delay in the full 
integration, which I think ultimately is what the people of 
Northern Ireland need to finally bring permanent peace and 
tranquility to their country.
    So thank you, sir.
    The Chairman.  Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you to all the nominees for your willingness to serve 
our country. Welcome to your families who are in attendance to 
today. And I just appreciate the fact that you are willing to 
serve our country. I truly do appreciate it.
    I have had the chance to visit with all of you about the 
work that you will be pursuing in the various countries that 
you will be representing, and the alliance, of course, that is 
so important and critical to the safety and security of Europe 
and the United States. I look forward to working with you in 
years to come, upon confirmation.
    I do serve as chairman of the East Asia Subcommittee, so, 
Ms. McFarland, I am sorry, I am going to spend most of my time 
sending questions your way.
    We have had a lot of conversations already that even 
Senator Markey most recently brought up about North Korea and 
actually covered one of the companies that I was going to talk 
about. Recent reports are OCN, as Senator Markey mentioned, was 
found to have been doing business with Pyongyang, doing 
business in Pyongyang and North Korea, a luxury goods store.
    As Ambassador, how do you approach that situation? How will 
you approach that situation where you see a report and find out 
some information about a company that is doing business in 
violation of either a U.N. resolution or a U.S. law like we 
passed last Congress dealing with North Korean sanctions? How 
do you approach this? How do you work with the Government of 
Singapore or any Nation, for that matter? How do you work 
within ASEAN to spread greater awareness of the need to address 
these sanctions and fully enforce them? And how do you deal 
with that, within the Trump administration?
    Ms. McFarland. Thank you, Senator Gardner. And I do, if 
confirmed, look forward to a long and fruitful conversation 
with you as the chairman of the East Asia Subcommittee.
    I think I would start with Embassy Singapore. It has not 
only Foreign Service Officers who are economic officers as 
well, but there are members of the Commerce Department, special 
trade rep, intelligence community and others.
    The first step would be to find out, okay, what is going 
on? What are these companies? What is their economic tie? And 
what is, potentially, their military tie to North Korea? And 
working through the State Department, as well as those people 
at Embassy Singapore who would be working with their home 
agencies, some 19, including even the Agriculture Department 
has representation in Singapore.
    And then it would be to present that issue to the 
appropriate place in the Singapore Government. Singapore wants 
good relations with us. They have said that time and again. 
Whether it is economic relations, whether it is military 
relations, whether it is political relations, security 
relations, they value our support at the United Nations and 
others. So that is worth something.
    And I think that the ability to go to a friendly country 
and say this is what we have determined, this is what the 
United Nations has determined, with regard to a company of 
yours. How are we going to work together to stop this?
    Singapore has said, Singaporean leaders, the Prime 
Minister, and others have said that they, too, are concerned 
about the threat of North Korea. And as Senator Markey pointed 
out, the only way that North Korea is ever going to get to the 
point of potentially giving up its nuclear weapons or changing 
its attitudes is if they feel the pressure.
    And where are they getting the pressure? We have had a 
number of sanctions that are against North Korea through the 
United Nations and other international organizations, but there 
has to be secondary pressure that is brought to bear. And as 
Secretary Tillerson has said, with regard to North Korea 
specifically, China looks at North Korea as a strategic asset. 
How are we going to change their minds to view it as a 
strategic liability? One of these would be the kind of economic 
pressure.
    But as we are bringing economic pressure to other countries 
not to do business with North Korea, Singapore we hope would 
work with us in that same goal.
    Senator Gardner. You mentioned talking about presence and 
you talked about the fact that, if we are not present within 
the region either economically or from a security standpoint, 
that creates a challenge for U.S. leadership.
    We have been working on legislation to try to create a 
long-term Asia strategy. What do you think some of the key 
points and framework should be of a long-term U.S. strategy to 
build that presence in Singapore and Southeast Asia overall?
    Ms. McFarland. Yes, and I think that in the conversations I 
have had with you, the direction you are going I think is very 
much in concert with what the administration, what Secretary 
Tillerson and others have said is their goal in the Asian 
region.
    One place that I think offers an enormous amount of future 
opportunity is cyber. Singapore and the United States have both 
been named as the two countries which are the best at and take 
most seriously the whole cyber issue, whether it is 
intellectual property theft, whether it is cyber defense, 
whether it is cyber hacking.
    And since Singapore is going to be chairman of ASEAN, the 
Association of Southeast Asian Nations, in 2018, they have 
already said that they want the cyber issue to be first and 
foremost, not only for Singapore but for the other countries in 
the region.
    Singapore's goal is to be the first smart nation where they 
use digital technology, where they use logarithms to help 
various aspects of their society, civil society.
    So I think that represents the future. And the world is 
going in the cyber direction, the Internet of Things. And if 
Singapore said that they are interested in doing that, we know 
we have had an interest in doing it.
    We know that we are both very vulnerable. We are the most 
connected countries in the world, but that leaves us with great 
vulnerabilities as well.
    So I would think that is a place to look, not only that I 
would be interested in looking at with Singapore but any work 
that you are doing as I proceed with this legislation that you 
are proposing.
    Senator Gardner. Thank you.
    Thanks to all of you for your service.
    The Chairman.  Thank you.
    Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to you all for your willingness to serve the 
country.
    Senator Hutchison, I am sorry that we did not get to serve 
together here in the Senate, but I am glad that the siren of 
public service has called you once again. I wanted to ask you a 
question about the role of counterterrorism within the NATO 
alliance.
    I think there are still some pretty glaring vulnerabilities 
in Europe, with respect to their ability to share information 
about terrorism threats, both to Europe and to the United 
States. It is as if the United States were trying to thwart 
terrorist attempts without the FBI, with 50 different State law 
enforcement jurisdictions voluntarily cooperating with each 
other.
    Is this an issue that should be left to the EU to figure 
out and to the EU Ambassador? Or is this a proper subject for 
our NATO Ambassador to engage with countries through that 
forum, to try to improve the ability of European countries to 
share information, perhaps through new mandatory procedures 
regarding counterterrorism threats?
    Senator Hutchison. Thank you. I think that is a very good 
question.
    I definitely think it is in NATO's purview. And I think the 
President, President Trump, brought that up. And NATO has now 
affirmed that cyberterrorism is a threat, in many instances. It 
could be in a communications system. It could be in any kind of 
business disruption. And it could be in our military 
communications or military activity.
    So I think it is in NATO's interests. They have already 
agreed that it will be one of the focuses and one of the main 
focuses.
    NATO is somewhat like the United States Senate, or any 
group that has different threats and different constituencies. 
Some members of NATO are more concerned about Russian 
aggression. Others are more concerned about terrorism and 
counterterrorism, depending on where they fall geographically.
    So I think it is very much a common threat, and it should 
be in the purview of NATO.
    Senator Murphy. I think it is probably in the purview of 
NATO. It is also in the purview of the EU. I think we need to 
apply as much pressure as possible to clean up these 
vulnerabilities, in part because there are vulnerabilities. 
These are visa waiver countries in which these threats can land 
on our shores without any security screens, so I thank you for 
that.
    Senator Hutchison. Your point, also, is very important, 
that NATO and the EU are also beginning to do more sharing than 
they have ever done before.
    Senator Murphy. Mr. Johnson, I know you got a question when 
I was not here earlier on Brexit and the future of Britain's 
relationship with the EU. But I wanted to talk to you about the 
conversation around a free trade agreement with Britain.
    There has been some talk within this administration of 
engaging in talks with Britain, with respect to a free trade 
agreement. There is great worry. I am in the category of those 
who worry that, if this is placed before a bilateral 
negotiation with the EU on what we call T-TIP, that it is going 
to provide an incentive for other countries to exit Europe, 
because they can get first in line for a trade agreement with 
the United States.
    Do you think that it is appropriate to negotiate a free 
trade agreement with England, with Britain, before we have 
engaged in a trade agreement negotiation with Europe, as a 
whole?
    Mr. Johnson. Thank you for that question. Thank you for 
that question, Senator.
    Yes, Brexit is going to be complicated. It is going to be a 
complicated series of agenda items going forward. And one of 
them is free trade and how that is played, I mean the bilateral 
trade between the U.S. and that country, and what impact that 
has, positive or negative. So I think that has to be factored 
in.
    I suspect that we are going to have to wait until this 
process unfolds a little more, so we figure out what the pieces 
are.
    And as Ambassador, if confirmed, I would be talking to the 
political and business leaders, and opinion leaders, in the 
country to figure out what vulnerabilities and what 
opportunities there are for American businesses and Americans.
    And you point out, there is every one of these factors, 
whether it is negotiating a bilateral agreement or even looking 
at cybersecurity, like you were just talking about. Everything 
is impacted by Brexit and our ability to kind of predict and 
project what is in our best interests as this unfolds.
    Senator Murphy. I do not expect you to be able to answer 
the precise question, but I would just caution you on this 
issue. It is one thing for our President to cheerlead Brexit. 
It is quite another to reward with them with a free trade 
agreement that will be fodder for many of the groups that are 
pushing for other countries to leave the EU as well. So I 
appreciate you giving more thought to that issue.
    Mr. Johnson. Thank you, sir.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    I see the making of a diplomat there.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    I have been asking this question of all of our nominees 
when they go to a specific country, so it is not personal, but 
it is just a continuing effort.
    Ms. McFarland, do you speak Mandarin, Tamil, or Malay?
    Ms. McFarland. No. My undergraduate degree was in Chinese 
studies, and I did study Chinese intensively for those years. 
My graduate work at MIT was on the Sino-Soviet military balance 
and the Sino-Soviet military conflict of 1969. The 
dissertation, sadly, I did not have an opportunity to finish.
    My Mandarin is very, very, very rusty. And one of the first 
things I would do is look forward to trying to see if I could 
remember back 40 years and try to refresh that. Thank you.
    Senator Menendez. Mr. Eisenberg, you speak Italian?
    Mr. Eisenberg. [Speaking in Italian.]
    If you will allow me, Senator, since you have asked the 
question, I was remiss in the opening, gratified by the 
introduction of Senator Rubio, since my wife and I have now 
been residents of Florida for almost a decade, but very remiss, 
I might say, in not addressing the fact that nine of my 16 
immediate family are sitting directly behind me, who are 
residents of the Garden State.
    Senator Menendez. Oh, I am familiar with that. [Laughter.]
    Mr. Eisenberg. I know that you are, but if you would just 
allow me, my wife, Judy, we just celebrated our 52nd 
anniversary, so for personal reasons, I would like to introduce 
my wife. My oldest daughter, Lisa Goodwyn, and my daughter, 
Laura Balestro, are here. Their husbands, Rick Goodwin, it is 
actually Laura Barr and Dr. Kyle Barr. And unfortunately, my 
daughter, Stacy Lyle and Paul Lyle, could not be here, but have 
three children who also will be voters in the State of New 
Jersey. [Laughter.]
    Mr. Eisenberg. So I would just be remiss if I did 
recategorize a little bit my origin, so thank you for that 
extra moment.
    We will continue to take Italian lessons, so that I can 
speak more than that opening phrase.
    Senator Menendez. Well, we should have made you the nominee 
to the Holy See, based upon that large, expansive family. 
[Laughter.]
    Senator Menendez. But I do not believe that not having a 
language ability is disqualifying. And I did not ask you my 
second question, because you all said it in your testimony, 
about whether or not you visited the country.
    Unfortunately, some of my colleagues in the past have held 
against Democratic nominees whether they did not speak the 
language or did not visit the country.
    So I am going to create a continuing record, so that we 
hopefully have equity at the end of the day, regardless of who 
the nominee is.
    Senator Cardin. Aren't you going to ask Mr. Johnson if you 
can speak the British English? [Laughter.]
    Senator Menendez. We have been working with each other on 
our Gaelic.
    So let me ask you all, with just a simple yes or no answer, 
do you believe that Russia sought to interfere in our 
presidential elections last year?
    Ms. McFarland. Yes.
    Mr. Eisenberg. I do not know the answer to that, but I 
think there is enough investigation and discussion going on, so 
I would like to reserve judgment for the moment.
    Senator Menendez. With 17 intelligence agencies, you still 
do not have a view.
    Mr. Eisenberg. I think it is likely, but I do believe there 
are investigations that are going on to corroborate it as fact.
    Senator Menendez. Mr. Johnson?
    Mr. Johnson. I have not studied the evidence on the inside, 
so I can just go by what I read, and it looks like, you know, 
it could have happened, maybe it did happen. But until I, 
really, if I went--if I did a complete analysis with all the 
information, I would be able to give you a much better 
judgment.
    Senator Menendez. Ms. Craft?
    Ms. Craft. Thank you. I believe, just from reading the 
material that everyone has had the opportunity to read, that it 
looks as if, yes. I would have to investigate this further and 
learn more points, but I do believe, yes.
    Senator Menendez. Senator Hutchison?
    Senator Hutchison. I think, from what our intelligence 
community has said and what has been in the newspapers and 
other media, that there is a good likelihood yes. I also think 
it is important that we know the extent and how it was done, 
and that is what the investigations are meant to do.
    Senator Menendez. And the reason I asked the question, it 
may seem unrelated to your nominations, but the fact is that 
the Senate passed 98-2 sanctions--it is very rare these days we 
get 98-2 votes--on Russia for, among other things, interfering 
in our elections.
    And when I heard your answer, Senator Hutchison, to Senator 
Murphy about cyberattacks and NATO, and how you described the 
different elements of what a cyberattack would be, we need to 
have our Ambassadors abroad making clear, unequivocal advocacy 
in the countries in which they are assigned join us in our 
multilateral sanctions effort, whether it be Iran, which is 
also part of that legislation, or whether it be Russia.
    So I am a little worried that, with all of the public 
knowledge--I am not saying that they affected the election. The 
mere fact that they tried to affect the election should be of 
great concern from the average citizen to the President of the 
United States. We need our Ambassadors to be advocating that 
point of view as it relates to sanctions when this finally 
passes the House and is signed by the President, and I hope we 
can count on you to do that.
    In that regard, Mr. Eisenberg, in reference to that 
legislation, one of the concerns that I have is to Italy. While 
Italy has complied with sanctions, it has relatively close 
relations with Russia and has indicated interest in doing more 
business with Iran.
    As my colleagues have noted, we expect this legislation 
soon to pass the House.
    How will you engage with the Italians on maintaining 
economic pressure, both on Russia and Iran?
    Mr. Eisenberg. If confirmed, Senator, I would intend to 
become more decisively involved in that discussion.
    But I would note that Italy is 80 percent reliant on its 
energy resources from Russia and Libya, but they have continued 
to maintain their substantial support on the sanctions. And I 
have no reason to expect that I would not continue to encourage 
and try to help them to live up to that.
    Senator Menendez. I appreciate their energy challenges, and 
you are right. But as a NATO ally, and dependent upon the 
United States as a major element of that, we need them, as well 
as other European countries that some of you will be nominated 
to--I do not have any doubt about Great Britain--but 
nonetheless, to be engaged in making sure that--because the 
European Union is by unanimity, one country breaking away 
breaks the sanctions regime. And if our multilateral sanctions 
regime is broken, then we have a real challenge in returning to 
the international order.
    So I commend that to part of your commitment to your work.
    And if I may take one last moment, Mr. Chairman, to Mr. 
Johnson, I appreciate the answer you gave on peace and justice 
in Northern Ireland, something that we spoke about when you 
came to visit me, and I am glad you came to visit me.
    Let me ask you this. The other problem with Great Britain 
right now is it is a critical security ally of ours. Sharing 
intelligence is critical to the national interests and security 
of the United States. We had some irritants between what 
happened at the Ariana Grande concert with leaks. We had 
comments made about the mayor of London.
    Will you work as our Ambassador to assure the United 
Kingdom that our commitment to security and our confidentiality 
in terms of the sharing of intelligence is going to be 
preserved?
    Mr. Johnson. Thank you, Senator. I certainly will.
    Senator Menendez. I have questions about Canada that I will 
submit to the record and look for a response.
    The Chairman.  Thank you so much.
    Senator Cardin?
    Senator Cardin. Mr. Eisenberg, I want to follow up on 
Senator Menendez's point, because your response in regard to 
Russia's interference in our elections, I fully appreciate the 
fact that you have not studied the issue, but there has been 
widespread reporting on it, and this Congress feels very 
strongly that Russia represents an extreme danger against 
America.
    That is the reason we are going to pass and enact the 
stronger sanctions taking away some of the discretion of the 
President as it relates to imposition of sanctions against 
Russia.
    Italy is a country that does business with Russia. Of the 
countries that we have Ambassadors, that is the only one of the 
four that currently does business with Russia. It is very 
possible they are going to be impacted by the sanctions.
    We have to work very closely with our European partners for 
sanctions to work against Russia. Europe is more vulnerable 
than we are to the activities that Russia is doing, so it is in 
their interests that we have strong unity between the United 
States and Europe in enforcing sanctions against Russia.
    But there will be business interests, and perhaps some 
governmental interests, in Italy that will resist some aspects 
of this, saying, ``Gee, can't we at least get a pass, so that 
we can continue to do this?'' And that weakens the whole fiber, 
the whole fabric of our sanctions regime. And we are going to 
need a very strong voice in Italy working with the EU and the 
United States to have a very united, strong position against 
Russia that, if they continue to interfere in our countries, 
they are going to pay a heavy economic price.
    Are you prepared to be that person?
    Mr. Eisenberg. If confirmed, I think I can deliver that 
message and execute on that message.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman.  Thank you. I want to thank you all for, 
again, your willingness to serve.
    I do want to reiterate, especially in Italy, U.K., and at 
NATO, Russia will do everything it can to destabilize and to 
pose a threat to democracy. And I think it is rare that the 
United States Senate has acted in the way that it has, 
regardless of what people may or may not think happened during 
the election, and I do think they did attempt to interfere, 
there is no question their goal is to destabilize democracies. 
I know that each of you will be strong advocates for that not 
occurring.
    I want to say, in particular, to Italy, I know that you 
will not be the Ambassador to the Vatican, but on my recent 
visit there, I was struck by the public relations campaign 
Russia had done to hold itself up as the protector of 
Christians, and the fact that the Pope and others seemed to be 
open to that.
    So I think there is a lot of work that we have to do there, 
and that mostly is in relation to what is happening in Syria.
    Then finally, I would just say that, in addition to passing 
a bill 98-2, this committee unanimously reported, and the 
Senate has adopted a major effort to end modern slavery around 
the world. In all the countries that you are going to, slavery 
exists. It exists in our own country. I know that each of you 
will have questions about trafficking, and that kind of thing. 
But we do hope that you will be advocates on that human value.
    The record will remain open until the close of business on 
Friday.
    I know a number of you have family issues, and you need to 
get to countries before school starts and that kind of thing. 
It is an usual time here in the Senate, but one of the things 
that can speed it along is, when you do get the questions, to 
the extent you can, pay personal attention and answer them 
fully.
    The Chairman.  Thank you all for your desire to serve.
    The meeting is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record



                              ----------                              



      Responses to Additional Questions for the Record Submitted 
          to Hon. Kay Bailey Hutchinson by Senator Marco Rubio

    Question 1. NATO estimates that only four other countries last year 
met the NATO guideline of spending 2 percent of GDP on defense. I know 
that some countries have now reached that mark or are on pace to do so 
in the near future, like Lithuania and Latvia. Still, there are too 
many in the Alliance that aren't reacting quickly enough to the new 
reality of consistent and destabilizing Russian aggression. Do you 
intend to press our NATO allies to hit NATO's 2 percent guideline? As 
defense spending increases in NATO countries, where should NATO look to 
add capability?

    Answer. As President Trump has made clear, it is no longer 
politically sustainable for the United States to maintain a 
disproportionate share of NATO's defense expenditures. If confirmed, I 
will continue to press Allies to increase their defense spending to 
meet the Wales pledge, in which Allies agreed to aim to move toward two 
percent of GDP on defense spending by 2024, with twenty percent of 
total defense expenditures on defense modernization. This issue goes 
beyond equitable burden sharing; it reflects what Allies need to do for 
themselves to meet the changed security environment.
    Five Allies--Estonia, Greece, Poland, the United Kingdom and the 
United States--already meet the two percent goal. We expect Romania to 
reach two percent this year, and Latvia and Lithuania should reach that 
goal in 2018. Thirteen Allies spend at least 20 percent of their 
defense budgets on major equipment. Three Allies--Poland, the United 
Kingdom, and the United States--currently meet both the two percent and 
the twenty percent goals, and Romania should reach both targets this 
year.
    At the May NATO Leaders Meeting, Allies agreed to develop national 
plans to put them on a path towards achieving these goals. I will 
continue to work with Allies through NATO structures and bilaterally to 
ensure that they meet their commitments.
    As the President has said, NATO must adapt to the challenges of the 
future. This includes acquiring the capabilities necessary to focus on 
today's most pressing security challenges, including the fight against 
terrorism.
    In June, Allies agreed to new capability targets--specific areas 
where the Alliance plans to improve in order to meet collective defense 
requirements in the face of existing and evolving threats. It is 
important for Allies to invest more on defense, with an eye towards 
meeting capability targets and modernizing in a way that avoids 
duplication, in order to fulfill capability shortfalls.
    NATO's Secretary General announced prior to the June 2017 Defense 
Ministerial that defense spending increases will be spent in such areas 
as heavy equipment, air-to-air refueling, more exercises, salaries, and 
missions in Afghanistan and Kosovo.

    Question 2. NATO added its 29th member this year, Montenegro, which 
was the first expansion since 2009. As Russian aggression continues, 
particularly in Eastern Europe, do you believe we should continue 
expanding NATO in the region? Should NATO invite Moldova to the 
Alliance? Georgia? Ukraine?

    Answer. Montenegro's accession demonstrates to NATO's other 
aspirants and the broader international community that NATO's 
commitment to its Open Door Policy is enduring and that no third 
country has a veto on NATO membership.
    The Open Door Policy is a Founding Principle of the Washington 
Treaty and one of the Alliance's great successes. NATO's door is open 
to all European democracies which share the values of our Alliance, 
which are willing and able to assume the responsibilities and 
obligations of membership, which are in a position to further the 
principles of the Treaty, and whose inclusion can contribute to the 
security of the North Atlantic Area. Decisions on enlargement are for 
NATO and the nation in question; no other outside country, such as 
Russia, has a voice in the process. At the Warsaw Summit NATO Allies 
said that they remain fully committed to the integration of those 
countries that aspire to join the Alliance, judging each on its own 
merits. The current aspirants are Bosnia and Herzegovina, Georgia, and 
Macedonia. That continues to be the right approach, and if confirmed, I 
will work to assist these countries in making progress. The enlargement 
process has and will continue to serve as a particularly effective 
vehicle for promoting democratic values, reform, and respect for the 
rule of law within the Euro-Atlantic region.
    The Membership Action Plan (MAP) is a NATO program of advice, 
assistance and practical support tailored to the individual needs of 
countries wishing to join the Alliance. Participation in the MAP 
program does not prejudge any decision by the Alliance on future 
membership. The MAP process provides a focused and candid feedback 
mechanism on aspirant countries' progress on their programs. This 
includes both political and technical advice, as well as annual 
meetings between all NATO members and individual aspirants at the level 
of the North Atlantic Council to assess progress, on the basis of an 
annual progress report. Moldova, Georgia, and Ukraine do not 
participate in the MAP program.



                               __________


       Responses to Additional Questions for the Record Submitted
       to Hon. Kay Bailey Hutchison by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I believe the pillars of freedom, human rights and 
democracy, are the crucial values on which America stands and our 
global leadership must project.
    As a founding honorary co-chair of Vital Voices, an organization 
that promotes women's equality, I have championed the women who have 
stood up for human rights and dignity throughout the world.
    I serve on the board of the International Republican Institute 
(IRI), part of the National Endowment for Democracy, that with its 
democratic counterpart promotes democratic institutions in emerging 
democracies.
Mission Statement
        A nonprofit, nonpartisan organization, the International 
        Republican Institute advances freedom and democracy worldwide 
        by helping political parties to become more issue-based and 
        responsive, assisting citizens to participate in government 
        planning, and working to increase the role of marginalized 
        groups in the political process--including women and youth.


    Question 2. What are the most pressing human rights concerns facing 
NATO today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy at NATO and with its 
member countries? What do you hope to accomplish through these actions?

    Answer. NATO's Open Door and its enlargement process encourage and 
support democratic reforms and the establishment of civilian and 
democratic control over military forces. Countries seeking NATO 
membership must, among other things, demonstrate that they have a 
functioning democratic political system. Critical elements of a 
functioning democratic system include free and fair elections, rule of 
law and an independent judiciary, and respect for human rights. These 
requirements provide aspiring countries a blueprint to set up 
democracies that protect human rights. I will promote these principles 
for our present and future allies. These are principles we also promote 
with our over 40 partners, even those not seeking to join the alliance.
    With regard to NATO-led operations, NATO remains vigilant about 
maintaining the highest standards of human rights in its military 
operations and activities.
    Over the past several years, NATO has worked closely with the UN to 
develop a policy on Women, Peace and Security (WPS), Children and Armed 
Conflict (CAAC) and Protection of Civilians (PoC). I will work with 
Allies to ensure the continued implementation of these policies not 
only in NATO-led operations and activities in the field, but also 
throughout the NATO Command Structure and NATO Headquarters.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face at NATO in advancing 
human rights, civil society and democracy in general?

    Answer. Within NATO, the biggest challenge is the lack of resources 
for these initiatives. Most of the resources for these projects are 
provided by nations through trust funds and voluntary contributions of 
personnel. Another challenge is to continue to encourage aspirants to 
meet NATO standards for democratic governance. Each aspirant is unique 
and judged individually on its merits. We are unwavering in our 
commitment that any Euro-Atlantic country that wishes to join the 
Alliance must meet the requirements to do so. If confirmed, I will 
continue the work that we do bilaterally and through NATO structures, 
to assist them in their reform efforts to meet NATO standards.
    Like aspirants, all NATO partners are unique. The challenge will be 
ensuring that partners maintain the same high democratic standards, 
especially when participating in NATO-led operations. I will continue 
to work through NATO structures and bilaterally to ensure that in 
executing operations and designing partnership agreements we continue 
to encourage partners to maintain NATO standards and values.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, my primary job as Ambassador is to lead the 
men and women at USNATO. My success rests on all of them. As their 
leader, I will strive to make sure they are empowered to advance U.S. 
national interests at NATO, and that they have the political and other 
support they require to effectively and efficiently do their jobs. I am 
conscious that my leadership legacy at USNATO is about more than 
securing policy successes. It is also about building the mission as an 
institution and developing the people who work there. I take this very 
seriously. If confirmed, I will fully support the Department's 
mentoring programs, and along with my Deputy Chief of Mission, ensure 
staff are provided with the professional development opportunities they 
require to build their capacity to serve at USNATO and at higher levels 
in other assignments. I am also cognizant of the importance of ensuring 
my team contains a diverse group of individuals from different 
backgrounds. I will expect my Department of State and Department of 
Defense employees, especially my senior managers, to demonstrate the 
same cognizance as we recruit employees, build internal teams or 
working groups, and set mission strategy. Finally, I understand the 
importance of mentoring, especially mentoring new employees or 
employees early in their careers, from all backgrounds.

    Question 7. What more is needed to build defense capacities within 
Ukraine, Moldova and Georgia?

    Answer. Russian aggression along portions of its periphery has 
affected or has the potential to directly affect these states. We 
recognize the need to increase these states' capacity to provide for 
their own defense, improve interoperability with NATO and other Western 
forces, and implement deep and sustainable defense reforms, which will 
contribute to collective security and stability along NATO's eastern 
flank.
    In response to Russian aggression, the United States has committed 
more than $600 million in security assistance and has provided training 
and equipment to help Ukraine defend its sovereignty and territorial 
integrity, better monitor and secure its borders, and deploy its forces 
more safely and effectively. Working with Ukraine's Armed Forces, we 
have also established a Multinational Joint Commission and training 
group to coordinate international efforts to help build Ukraine's 
defense capacity and deter further Russian aggression. NATO assistance 
to Ukraine was formalized in a Comprehensive Assistance Package (CAP) 
adopted at the July 2016 NATO Warsaw Summit. The more than 40 targeted 
support measures in the CAP focus on assisting Ukraine's ongoing 
defense reforms, which aim to bring Ukraine up to NATO standards, 
including civilian control of the military, by 2020.
    Efforts in Georgia seek to strengthen its defense readiness, 
support expeditionary deployments, and support Georgia's sovereignty 
and territorial integrity through the Georgia Defense Readiness 
Program. Georgia received a significant increase in security assistance 
to total more than $30 million in FY 2016. NATO Allies, including the 
United States, also are supporting Georgia's defense institutions 
through the Substantial NATO-Georgia Package, which provides resources 
and advisors help to prepare Georgia for eventual NATO membership.
    NATO Allies support Moldova through a Defense and Related Security 
Capacity Building program aimed at reforming the country's defense and 
security sector. Allies also support the wider democratic, 
institutional and judicial reform process underway in the country. U.S. 
security assistance to Moldova totaled $12.75 million in FY 2016 and 
focused on defense reform, strengthening internal defense capabilities, 
and ensuring interoperability with regional partners, including NATO.

    Question 8. What opportunities do you see to better support 
democratic governance and institutional reforms in countries vulnerable 
to Russian aggression?

    Answer. Transparent and accountable defense institutions under 
democratic control are fundamental to stability in the Euro-Atlantic 
area and beyond, and are essential for international security 
cooperation. Within the framework of its Building Integrity Program, 
NATO works to support Allies and partner countries to promote and 
implement the principles of integrity, transparency and accountability 
in accordance with international norms and practices.
    Because no single model will work for all countries, there is a 
wide range of support NATO and the U.S. Government can bring. NATO 
support to vulnerable countries such as Ukraine and Georgia can help 
bolster democratic governance and further institutional reforms. The 
United States and Allies help train the militaries and advise 
governments on necessary military reforms, such as civilian control of 
the military and in promoting anti-corruption efforts, offering our own 
programs as well as supporting European experts in their work. 
Corruption is a key lever of influence for Russia, and eliminating it 
is essential to building resilience.



                               __________


      Responses to An Additional Question for the Record Submitted
          to Hon. Kay Bailey Hutchison by Senator Cory Booker

    Question 1. If confirmed as NATO ambassador, you would be entrusted 
with safeguarding relationships with our most trusted allies and 
partners and, if President Trump's latest meeting with NATO is any 
indication, addressing the statements of the President while not 
further fracturing alliances with our allies.
    Nicholas Burns, who served as ambassador to NATO under President 
George W. Bush, stated ``I do think Trump's visit to NATO was the least 
effective of any American president since 1949,'' following President 
Trump's attendance at the NATO summit earlier this summer. The 
President did not reaffirm Article 5 even after NATO states came to 
America's aid after 9/11--the only time in the alliance's history that 
it has invoked Article 5. About a third of the NATO soldiers killed in 
Afghanistan have come from countries other than the United States.

   Do you believe that the United States should abide by our Article 5 
        commitment and how will you reassure our allies that we stand 
        shoulder to shoulder with them?

    Answer. I fully agree with the public statements made by President 
Trump, Vice President Pence, Secretary Tillerson, and Secretary Mattis, 
that the United States is fully committed to Article 5. Collective 
defense in accordance with Article 5 is a bedrock principle of NATO and 
underpins the transatlantic relationship.
    The United States' commitment to Article 5 is ironclad and the 
United States backs up this commitment with action. The United States 
leads a rotational multinational battle group in Poland as part of 
NATO's enhanced Forward Presence. In addition, the United States 
supports deterrence and defense activities in Europe through the 
European Readiness Initiative (ERI). This administration's Fiscal Year 
2018 Budget request included $4.8 billion--a $1.4 billion increase from 
last year--to fund ERI. I appreciate Congress' steadfast support for 
this initiative.
    I welcome recent resolutions passed by the House and Senate 
reaffirming the U.S. commitment to Article 5.
    We recall with gratitude that the only invocation of Article 5 in 
NATO's 68 years happened in the wake of the September 11, 2001, 
attacks.



                               __________


           Response to An Additional Question for the Record 
            Submitted to Kelly Craft by Senator Marco Rubio

On NATO and ISIS
    Question 1. While Canada has a contingent of 800 troops to fight 
ISIS, it recently discontinued flying counterterrorism sorties in Syria 
due to security concerns. In 2016, NATO estimates that Canada only 
spent less than 1 percent of its GDP on defense. Are Canada's 
contributions to NATO operations and the coalition against ISIS enough? 
Do you commit to press the Canadian Government to increase its 
contributions to NATO and the anti-ISIS coalition?

    Answer. Canada continues to play a central and critical role in 
U.S. counterterrorism operations worldwide, including in Afghanistan 
and Iraq, where Canada has troops deployed on the ground. In support of 
D-ISIS operations in Iraq, Canadian forces are training, assisting, and 
advising Iraqi forces together with U.S. and Coalition personnel, 
including throughout the recent nine-month operation to liberate Mosul.
    The United States has made clear to NATO allies, including Canada, 
our expectation that they live up to their Wales commitments to allot 2 
percent of GDP to defense. We have raised this repeatedly with Canada 
and I will continue to do so if confirmed. Canada recently released the 
results of a comprehensive defense policy review, which includes many 
welcome elements which will reform and strengthen Canadian military 
capabilities. We will continue to urge fulfillment of these commitments 
and greater burden sharing from NATO allies.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Kelly Craft by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. One of the most important ways to promote democracy is to 
be an active participant in our great American experiment. Throughout 
my life, starting with my father (a life-long Democrat), I have learned 
the importance of participating in elections by supporting candidates 
in whom you believe, volunteering on campaigns in your own community, 
and speaking up against inequities regardless of political 
repercussions. With regard to human rights issues, I previously had the 
privilege to serve our country as an alternate delegate to the United 
Nations, an international organization whose mission, in great part, is 
to advance the rights of all people around the world.
    If confirmed, I look forward to building on these past experiences 
and working with President Trump, Congress and other key stakeholders 
to advance human rights and democracy. In particular, I anticipate 
dedicating my time and energy to the issue of human trafficking--a 
matter on which Chairman Bob Corker, Ranking Member Ben Cardin, Senator 
Robert Menendez and their colleagues have shown greater leadership in 
recent years. As part of this effort, I will work diligently on the 
State Department's recommendation for Canada to: ``increase specialized 
services and shelter available to all trafficking victims. . . . '' as 
well as pay special attention to interagency and bilateral efforts that 
can improve data collection and coordination on anti-trafficking 
efforts here in North America and in multi-lateral fora in which Canada 
and the United States collaborate.

    Question 2. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from Canada?

    Answer. Yes. Canada and the United States have a long and proud 
history of jointly advancing the cause of human rights both at home and 
abroad. I look forward to working with my Canadian counterparts to 
continue to promote our common values.

    Question 3. Will you engage with Canadian Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. I look forward to working with my counterparts to 
promote the cause of human rights, civil rights, and governance 
worldwide.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.


    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in Canada?

    Answer. To my knowledge, neither I nor any of my immediate family 
members have any direct financial interests in Canada. If confirmed to 
serve as U.S. Ambassador to Canada, I will commit to the highest 
standards of ethical conduct for government officials and honor my 
ethical obligations under applicable federal law, regulations and 
rules. Additionally, if confirmed, I will adhere to all of the 
commitments set forth in my pre-clearance ethics agreement with the 
U.S. Department of State and raise any pertinent conflict of interest 
or ethical concerns that I may have through appropriate channels.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Yes. I share the view that a diverse workforce is key to 
ensuring a productive and creative team. I will endeavor to reflect the 
diversity of our great nation by promoting the value of diversity as 
Ambassador to Canada through our Embassy and our activities.

    Question 8. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that's diverse 
and inclusive?

    Answer. I will lead by example by fostering a culture of acceptance 
and inclusivity throughout Mission Canada. To achieve a diverse 
workforce, I will:

   Work to implement appropriate procedures for support and mentoring 
        of staff;
   Fully comply with federal non-discrimination laws and regulations 
        in our Embassy and consulates; and
   Clearly communicate the importance of complying with established 
        protocols and procedures.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Kelly Craft by Senator Robert Menendez

    Question 1. Until recently, Canadian courts have applied a utility 
requirement--referred to as the ``promise doctrine''--when assessing 
biopharmaceutical patents. Canada has used this policy to invalidate 26 
patents over the last decade. Last month, the Supreme Court of Canada 
invalidated the promise doctrine.

   Will you press for full and immediate implementation of this 
        decision?
   How will you work to ensure that our trading partners, including 
        Canada, uphold their FTA and WTO commitments on intellectual 
        property rights?

    Answer. Yes. I am aware of the Canadian Supreme Court decision, 
which addresses a longstanding concern of the United States. Together 
with my team at Mission Canada, we will work closely with our 
colleagues at the Department of Commerce and the U.S. Trade 
Representative's office to press the Government of Canada to enforce 
the highest standards on intellectual property rights and to ensure 
that U.S. companies are fairly treated.

    Question 2. More money is spent on biomedical research and 
development in the U.S. than in any other country in the world. 
Proposals under consideration by the Canadian Government to change the 
way medicines are paid for in Canada would adopt pricing setting 
measures that discount this important investment. This could 
significantly harm U.S. biopharmaceutical companies and ultimately 
patient access to medicines.

   How will you work to advance policies for American innovators that 
        appropriately recognize and reward the value of medicines and 
        ensure patients have access to the medicines they need?

    Answer. Patients in both countries benefit from continued 
innovation in the medical and pharmaceutical industries. If confirmed, 
I will work with U.S. Government agencies to ensure that U.S. 
biopharmaceutical companies are fairly treated in the Canadian market.

    Question 3. Under NAFTA, when a U.S. investor in Canada is denied 
``fair and equitable treatment'', the recourse for the U.S. investor is 
to file a claim with an arbitration panel. In certain cases, after a 
NAFTA arbitration panel decides in favor of a U.S. investor against 
Canada the Canadian Government has resorted to its own domestic courts 
to strike down the decision. After spending considerable time and 
resources to undertake the dispute panel process, U.S. companies must 
then fight the Canadian Government in the Canadian courts to preserve 
their victory.

   Will you commit to work with me and your Canadian counterparts to 
        find a just resolution of these issues?
   How will you seek to impress upon the Canadian Government the 
        importance of fulfilling their existing obligations under 
        NAFTA, including the decisions of dispute resolution panels?

    Answer. I share your commitment to protect U.S. investors and, if 
confirmed, I will work with the Congress and with the Government of 
Canada to support fair and just treatment of U.S. companies in any 
dispute resolution process with our NAFTA partners.

    Question 4. Following the President's withdrawal from the Paris 
Climate Accord, the United States and Canada, we recently saw Prime 
Minister Trudeau reaching out directly to states to engage on critical 
issues including the environment, clean technology cooperation, and 
other energy priorities.

   What implications do you think this has for traditional bilateral 
        engagement and how do you plan to represent the United States 
        as a country, when our states are taking the lead with a 
        different policy position?
   Do you plan to continue to work with Canada on mutually beneficial 
        clean technology development? How?

    Answer. The issues you mention remain priorities for both of our 
countries. The United States supports a balanced approach to climate 
policy that lowers emissions while promoting economic growth and 
ensuring energy security. We will continue to reduce our greenhouse gas 
emissions through innovation and technology breakthroughs. This 
administration believes in cooperative federalism, and therefore is 
supportive of states and cities making their own choices within their 
respective borders on climate policy.

Refugees and migrants
    Question 5. Given significant and severe refugee crises around the 
world, Canada has adopted overwhelmingly welcoming policies. 
Additionally, Canada has migration policies in place that open the 
doors for entrepreneurs to come to Canada, welcome increasing numbers 
of students to their universities, and generally promote a positive 
image of migration in Canada.

   How do you plan to engage Canada on the issues of refugees and 
        migration?
   Do you believe it puts the United States at a disadvantage to have 
        more restrictive immigration policies that those of our 
        neighbor?

    Answer. If confirmed, I will engage the Canadian Government at the 
federal and provincial level to share views on immigration and refugee 
issues and ensure continuing cooperation. The United States and Canada 
work together closely on border security and information sharing, and 
we are both proud of our history as countries with diverse populations 
and a strong record of welcoming immigrants and migrants with legal 
status.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to Kelly Craft by Senator Ron Johnson

    Question 1. In 2015, the Canadian Radio-television and 
Telecommunications Commission (CRTC), Canada's broadcasting and 
telecommunication regulatory agency, issued a decision that singled out 
the Super Bowl as it relates to simultaneous substitution. I, along 
with Senator Marco Rubio, first raised this issue in a December 2016 
letter to Canadian ambassador David MacNaughton, urging Canada to 
reverse the CRTC's ruling related to the Super Bowl. I also am aware 
that colleagues in both the House and Senate, from both sides of the 
aisle, also raised this issue over the course of many months with the 
Ambassador and other officials in both Canada and the United States. 
Unfortunately, however, the Canadian Government took no action, and the 
policy went into effect, causing significant harm to the NFL and its 
Canadian partner with the exclusive broadcasting rights there. If 
confirmed, will you commit to examining this issue and working with 
officials and stakeholders on both sides of the border to resolve this 
issue and protect the interests of the NFL as a U.S. copyright owner?

    Answer. Yes. If confirmed, I will continue to examine this issue 
and work with the appropriate government officials and stakeholders in 
both countries, and to advocate on behalf of the NFL on the issue of 
broadcasting rights for the Super Bowl.



                               __________


      Responses to Additional Questions for the Record Submitted 
          to Robert Wood Johnson by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a private citizen in the United States, I've taken a 
number of philanthropic steps to improve the lives of those living in 
disadvantaged communities or poor state of health and physical 
condition. Some of the accomplishments of which I'm most proud include 
my philanthropy toward relief from diabetes and lupus as well as 
supporting catastrophically injured veterans.
    As a former Chairman of the Juvenile Diabetes Research Foundation 
International, I initiated the campaign ``The Only Remedy Is a Cure,'' 
transforming a small, non-profit group into the largest private medical 
entity focused on finding a cure for diabetes. I devoted a good deal of 
time working with the National Institutes for Health to secure 
government funding for diabetes research, and this led to a three-year 
term on the National Diabetes and Digestive and Kidney Diseases 
Advisory Council.
    In 1999 my focus expanded to include medical research to better 
treat and cure lupus. As there was no formal organization devoted 
exclusively to researching this debilitating autoimmune disease, I 
established the Alliance for Lupus Research (now known as Lupus 
Research Alliance) to raise funds to prevent, treat and cure lupus. 
ALR-funded research laid the foundation for development of 30 percent 
of all lupus drugs currently in the clinical-trial pipeline.
    As a New Yorker, I feel compelled to recognize the important 
sacrifices made by our service members. Through the Stephen Siller 
Tunnel to Tower Foundation, we support catastrophically wounded 
veterans in the region to fund the construction of smart homes through 
the Foundation's Building for America's Bravest program. This program 
builds specially adapted, custom-designed smart homes to help restore 
independence and improve the quality of life for our nation's most 
seriously injured service members. Each smart home imparts self-
sufficiency; by means of special technology, a wounded veteran can 
manage day-to-day tasks without depending on others. It's humbling to 
be a part of a program that restores independence to veterans who put 
their lives on the line for their country.
    Lastly, following my grandfather's legacy, I have served as a 
Trustee Emeritus of the Robert Wood Johnson Foundation, the nation's 
largest philanthropic organization devoted exclusively to promoting 
health and advancing healthcare. The Foundation aims to prompt new 
public policy, inspire action from the private sector, and improve the 
delivery of the best health care to the most people. Among its many 
successes, the Foundation has made substantial inroads in its anti-
smoking campaign as well as reducing the rate of childhood obesity.

    Question 2. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the United Kingdom?

    Answer. Yes. I am committed to working with civil society groups 
and NGOs to advance U.S. priorities, including human rights. If 
confirmed, I would welcome the opportunity to meet with experts in 
these areas on both sides of the Atlantic.

    Question 3. Will you engage with British Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. If confirmed, I will continue the U.S. Mission's 
strong partnership with Her Majesty's Government and British civil 
society to engage on these topics.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in the United Kingdom?

    Answer. I have identified all applicable financial interests on my 
public financial disclosure form, including interests that may be 
connected to the UK and have consulted at length with the Office of 
Government Ethics and the Department of State's designated agency 
ethics official to identify any potential conflicts of interest. All 
potential conflicts of interest have been resolved to the satisfaction 
of ethics officials and in accordance with the terms of my ethics 
agreement.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. My experience in business and philanthropy has given me 
myriad opportunities to build high-functioning teams with diverse 
members. I remain committed to equal employment opportunity principles. 
If confirmed, I will foster a work environment which recognizes the 
contributions of all employees, and will make sure they have 
information available about the Department's Diversity and Inclusion 
Strategic Plan, foreign affairs affinity organizations, and 
opportunities specific to various groups.

    Question 8. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will encourage all supervisors to take 
available courses on EEO principles, diversity, and related issues. I 
will urge them to discuss unconscious bias and similar topics when they 
mentor junior colleagues. I will direct supervisors to transparently 
and fairly provide opportunities to all entry- and mid-level 
professionals. By providing time for professional development 
discussions to address diversity, I will highlight that this is a 
priority for me as the Ambassador.

    Question 9. What is your assessment of the United Kingdom's 
military capabilities and defense spending?

    Answer. The United Kingdom Ministry of Defense (MOD) and Armed 
Forces are our closest partners and one of the top contributors to NATO 
and U.S.-led missions globally. Her Majesty's Government (HMG) remains 
committed to spending at least two percent of GDP on the defense 
budget, and is spurring other NATO Allies to meet that same commitment. 
If confirmed as Ambassador, I will underscore the importance that 
America's allies, including the United Kingdom, share the burden in 
meeting and addressing threats to our peace and security, including by 
continuing to meet its commitment to spend at least 2 percent of GDP on 
its military.
    The MOD in 2015 presented ambitious defense capability upgrades and 
force integration plans. Officials confirmed that the MOD would bring 
two new aircraft carriers into action, continue acquiring the F-35 
Joint Strike Fighter, and improve capabilities by acquiring the P-8 
Maritime Patrol Aircraft, additional AH-64 attack helicopters and CH-
47G heavy lift helicopters, and the new Ajax armored vehicle. In July 
2016, HMG committed to its continuous at-sea nuclear deterrent with the 
intent to commission four new nuclear ballistic missile submarines.

    Question 10. Do you think recent United Kingdom defense cuts have 
affected transatlantic cooperation and burden-sharing or the United 
Kingdom's military's ability to carry out operations?

    Answer. The United Kingdom maintains a high-tempo of global 
military operations and defense engagement. UK operational priorities 
include support to defeating ISIS and supporting the Iraqi Security 
Forces; countering violent extremism in Libya; supporting the Afghan 
National Defense and Security Forces in NATO's Resolute Support 
Mission; deterring Russia by leading a battle group in Estonia as part 
of NATO's enhanced Forward Presence effort; and building defense 
capacity in Ukraine, Nigeria, Tunisia, Jordan, and east Africa. In 
addition, MOD officials work closely with U.S. counterparts to achieve 
our shared counterterrorism objectives.

    Question 11. Should U.S. policymakers be concerned that the United 
Kingdom could become a less robust and less influential defense partner 
in the coming years?

    Answer. Prime Minister May has made clear that the UK will continue 
to be a global leader, and a key U.S. partner, in tackling global 
security and defense challenges.
    Even before the decision to leave the European Union (EU), HMG made 
international engagement a priority in its 2015 defense strategy 
review. The MOD committed to work with Allies and partners in NATO, the 
Joint Expeditionary Force, the Combined Joint Expeditionary Force, and 
to deepen its interoperability with U.S. forces.
    The MOD also charged its forces to increase international defense 
engagement--to increase British influence globally and build partner 
defense capacity. This defense engagement task coincides with the UK 
national prosperity agenda to market and sell British products, 
primarily defense articles, to partner nations and Allies globally.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Robert Wood Johnson by Senator Jeanne Shaheen

    Question 1. Mr. Johnson, I noticed that you could not affirmatively 
say that Russia was behind the cyber intrusion into 2016 U.S. 
elections. While I understand that you have not reviewed the classified 
intelligence, do you trust the judgment of our intelligence community 
and will you be able to affirm their judgment in your bilateral 
discussions with the UK and other foreign representatives on this and 
other matters?

    Answer. I have the utmost respect for the women and men of the U.S. 
intelligence community. While planning Super Bowl XLVIII, I saw first-
hand their professionalism, judgment, and patriotism as they worked to 
keep Americans safe during the week-long activities. I trust our 
intelligence community's judgment and devotion to our nation.
    If confirmed, I will carefully review available intelligence and 
analysis to ensure that I am most effective in advancing U.S. foreign 
policy objectives in the United Kingdom. And I will certainly affirm my 
confidence in the judgment of the U.S. intelligence community during 
bilateral discussions with British and other foreign representatives 
where appropriate.

    Question 2. One other issue that I'd like to raise is something 
that's been brought to my attention by someone who has testified before 
the Senate Foreign Relations Committee on the challenge of dealing with 
Vladimir Putin and his associates in the Kremlin. Vladimir Kara-Murza, 
a prominent Russian dissident who has suffered multiple assassination 
attempts, has emphasized the need for the U.S. and the UK to prevent 
Russian oligarchs who wish to hide stolen assets in the West. This 
practice is well-documented by investigative journalists and the UK 
documentary ``From Russia with Cash'' revealed how real estate agents 
in Great Britain, in particular, can be key enablers for laundering 
dirty money. Are you familiar with this issue? How best can the United 
States close such loopholes in this country and encourage Allies like 
the UK to do the same? Can you commit to raising it with your British 
counterparts, if confirmed?

    Answer. While not familiar with this specific issue or documentary, 
I recognize the importance of preventing money launderers from hiding 
stolen assets in the United States or anywhere else. If confirmed, I 
will raise this issue and commit to working closely with Her Majesty's 
Government to explore joint strategies for improving anti-money 
laundering efforts.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Lewis Eisenberg by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The importance of American democracy and our basic 
liberties, values, and way of life was never clearer to me than in the 
days after September 11, 2001. As the Chairman of the Port Authority of 
New York and New Jersey, and later as a board member of the Lower 
Manhattan Development Corporation, I was intimately involved in the 
immediate rescue, recovery, and rebuilding efforts following the attack 
on the World Trade Center--efforts that helped send a message that 
Americans would defend and protect our way of life, even at great cost.
    Before and since that terrible day, human rights and democracy have 
been important values in my career. For the past 15 years, I have 
worked in electoral politics, including efforts to promote political 
participation and get young people involved in the democratic process. 
I served for over 15 years as a board member and volunteer for New York 
Service for the Handicapped, and in that position I worked to advance 
the rights and opportunities of persons with disabilities. In my 
philanthropic activities, I have supported efforts to end 
discrimination against LGBT persons. And throughout my career, I have 
worked to promote equal treatment and professional opportunities for 
women in the financial industry.
    Serving with my wife as a national Board Member of the American 
Israel Public Affairs Committee (AIPAC), I had the opportunity to 
advocate for democratic values in an international context, working to 
strengthen U.S. support for Israel as a critical democratic ally in the 
Middle East.

    Question 2.  What are the most pressing human rights concerns in 
the Republic of San Marino today? What are the most important steps you 
expect to take--if confirmed--to advance human rights and democracy in 
Italy and the Republic of San Marino? What do you hope to accomplish 
through these actions?

    Answer. Italy and the Republic of San Marino are strong partners in 
advancing human rights around the world. Nevertheless, some important 
challenges remain. In San Marino, official corruption and transparency 
issues are important challenges, given the Republic's historic role as 
an international financial hub. Access for persons with disabilities is 
another area where more can be done.
    Italy's place on the frontline of Europe's ongoing refugee and 
migration crisis has brought into sharp relief challenges of human 
trafficking, including labor and sex trafficking, particularly for 
unaccompanied minors and other vulnerable populations, as well as 
challenges regarding capacity and adequacy of housing. Other issues in 
Italy include corruption and incidents of mistreatment and social 
exclusion of members of minority groups, including Roma.
    If confirmed, I am committed to continuing Mission Italy's active 
engagement with Italian and Sammarinese officials on these important 
issues. In particular, in the context of the ongoing refugee and 
migration crisis, I would seek to redouble our efforts to partner with 
Italy and San Marino in combating human trafficking and addressing 
human rights abuses against refugees and migrants. I would also look 
forward to strengthening Mission Italy's programs to combat corruption 
and promote good governance and transparency.

    Question 3.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Italy and the 
Republic of San Marino in advancing human rights, civil society and 
democracy in general?

    Answer. The people and governments of Italy and the Republic of San 
Marino are strong, willing partners in addressing human rights issues 
at home and around the world. However, the refugee and migrant crisis 
has strained Italy's capacity to screen and identify victims of 
trafficking, provide adequate shelter to newly arrived refugees and 
migrants, and protect refugees and migrants from exploitation and 
abuse. If confirmed, I look forward to doing everything possible to 
support Italy's efforts--together with its European Union neighbors and 
the international community--to meet this historic challenge and 
protect the human rights of all who arrive on Italy's shores.

    Question 4.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Italy and the Republic of San Marino?

    Answer. These are very important issues, and if confirmed, I am 
absolutely committed to meeting with human rights, civil society, and 
other non-governmental organizations in the United States and with 
local human rights NGOs in Italy and the Republic of San Marino.

    Question 5.  Will you engage with Italians and Sammarinese on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. These are very important issues, and if confirmed, I am 
absolutely committed to engaging with the Italians and Sammarinese on 
matters of human rights, civil rights, and governance as part of the 
bilateral mission.

    Question 6.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8.  Do you or do any members of your immediate family have 
any financial interests in Italy or the Republic of San Marino?

    Answer. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest. My investment portfolio 
includes companies that have a presence in Italy, but I have worked 
closely with the State Department Ethics Office and the Office of 
Government Ethics and will divest my interests in those companies the 
State Department Ethics Office deems necessary to avoid a conflict of 
interest. I will remain vigilant with regard to my ethics obligations.

    Question 9.  Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and productivity. What will you do to promote, mentor and 
support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am fully committed to equal employment opportunity 
principles. I firmly believe that those who represent the United States 
abroad must fully reflect America's diversity. As the State 
Department's Statement on Diversity and Equal Employment Opportunity 
notes, ``Our commitment to inclusion must be evident in the face we 
present to the world and in the decision-making processes that 
represent our diplomatic goals.'' Throughout my career, I have worked 
to ensure the organizations I helped lead had no barriers to 
opportunity based on race, religion, gender, or other protected 
categories. If confirmed, I would uphold the same principles of 
equality and equal opportunity throughout Mission Italy.
    I have worked to promote the success of the diverse teams I have 
led. If confirmed, I will take the same approach to managing the 
Mission Italy team, ensuring each member of the mission community is 
able to draw upon his or her unique background and experience to 
contribute to our shared goals.

    Question 10.  What steps will you take to ensure that each of the 
supervisors at the Embassy are fostering an environment that's diverse 
and inclusive?

    Answer. I take seriously not only my own duty, if confirmed, to 
lead a diverse and inclusive mission, but also my responsibility to 
ensure managers and supervisors across Mission Italy fully uphold equal 
employment opportunity principles and promote the success of each 
member of our embassy community. If confirmed, I will clearly and 
consistently articulate these principles as Chief of Mission, and I 
will work with my Deputy Chief of Mission and Country Team to ensure 
our mission supervisors consistently prioritize them in their 
interactions.

    Question 11.  Over many years, the Russian Government has 
developed, refined, and deployed its toolkit for malign influence in 
Europe and elsewhere. I believe that these efforts, which seek to erode 
citizens' confidence in the credibility of democratic institutions, 
pose a grave threat to the national security interests of the United 
States and our allies and partners around the world. There are reports 
that the Russian Government has sought to exert undue influence in 
Italian politics, media and civil society. How will you work to counter 
nefarious Russian influence in Italy?

    Answer. Italy shares our concerns about Russian aggression in 
Europe, including Russian disinformation campaigns and malign influence 
activities. If confirmed, I will work to strengthen our coordination 
with Italian partners, across relevant agencies, to detect and counter 
these activities that seek to undermine democratic institutions and 
principles. If confirmed, I will make U.S.-Italian cooperation on this 
issue a priority, particularly in advance of Italian national elections 
that are likely to take place in 2018.

    Question 12.  Will you commit to engaging with the Senate Foreign 
Relations Committee on this issue?

    Answer. Yes.



                               __________


      Responses to Additional Questions for the Record Submitted 
              to Lewis Eisenberg by Senator Jeanne Shaheen

    Question 1. Mr. Eisenberg, I noticed that you could not 
affirmatively say that Russia was behind the cyber intrusion into 2016 
U.S. elections. While I understand that you have not reviewed the 
classified intelligence, do you trust the judgment of our intelligence 
community and will you be able to affirm their judgment in your 
bilateral discussions with Italy and other foreign representatives on 
this and other matters?

    Answer. The weight of publicly available evidence clearly indicates 
Russia attempted to interfere in the 2016 U.S. elections. I take this 
very seriously. As Secretary Tillerson has said, Russian attempts to 
influence democratic political systems have been well documented in the 
United States and elsewhere. I have tremendous respect for the United 
States Intelligence Community, and I look forward, if confirmed, to 
reviewing the more detailed intelligence and analysis that will be 
available to me upon confirmation.
    If confirmed, I will have no hesitation in presenting U.S. 
Government views and assessments to my Italian counterparts and will 
strongly advocate for shared action to address common concerns. I will 
work to strengthen our coordination with Italian partners, across 
relevant agencies, to detect and counter activities of Russia and other 
countries that seek to undermine democratic institutions and 
principles. If confirmed, I will make U.S.-Italian cooperation on this 
issue a priority, particularly in advance of Italian national elections 
that are likely to take place in 2018?

    Question 2. If confirmed, will you continue to stress to the 
Italian Government the importance of their support for U.S.-EU economic 
sanctions on Russia? What are the biggest challenges do you feel you 
will encounter in this regard and how will you address them?

    Answer. If confirmed, I will strongly advocate for continued U.S.-
EU unity in maintaining pressure on Russia through sanctions. Our 
administration and the Government of Prime Minister Gentiloni have made 
clear that sanctions must remain in place until Russia fully implements 
the Minsk agreements, including ceasing aggression in eastern Ukraine 
and respecting Ukraine's sovereignty and territorial integrity.
    Maintaining Italian popular support for EU sanctions can be a 
challenge, particularly amid flawed perceptions that Italian businesses 
have suffered uniquely from reduced trade with Russia. If confirmed, I 
will work to dispel these misperceptions, make sure Italians understand 
the stakes of Russia's aggression--including the suffering of the 
Ukrainian people--and I will stress the vital importance of continued 
unity in our response.


                               __________


     Responses to An Additional Question for the Record Submitted 
               to Lewis Eisenberg by Senator Cory Booker

    Question 1.  Italy has called for increased U.S. engagement in 
addressing the ongoing conflict in Libya. There was also some press 
reporting that a Trump aide, Sebastian Gorka talked to the Europeans 
about partitioning Libya into three. This idea has been widely 
discredited.

   What do you think about a possible effort to divide Libya into 
        three?
   What steps is the United States taking to support international 
        efforts to bring stability to Libya and what role do you think 
        we should play in working with European partners in this 
        effort?
   Do you have concerns about militarized responses to areas we are 
        countering extremist networks without a comprehensive 
        diplomatic strategy in place?

    Answer. The United States and Italy have been strong partners in 
support of Libyan efforts to improve security and foster the political 
stability necessary to defeat ISIS and other terrorists, restore the 
economy, and address transnational flows of migrants and weapons. Both 
the United States and Italy have engaged a wide range of Libyan 
political and security figures, pressing all parties to de-escalate 
tensions and negotiate a political compromise within the framework of 
the Libyan Political Agreement (LPA), which provides a roadmap for a 
transitional government and national elections. The United States 
supports a united Libya, with a capable, unified government and unified 
national security forces.
    The United States believes that political stability and peace in 
Libya depends on national reconciliation. We will work closely with the 
UN and European and regional partners such as Italy to foster political 
dialogue among Libyans. Libya's neighbors, states in the region, and 
European partners such as Italy all have an important role in 
supporting Libyan-led efforts to reach a political solution. There is 
no military solution to Libya's conflict. The parties must reach a 
political compromise to stabilize the country, avoid civil conflict, 
and unify all Libyan forces against the real enemy: ISIS and other 
terrorists.
    If confirmed, I look forward to strengthening our diplomatic 
engagement with Italy to help stabilize Libya so it cannot be a 
platform for terrorists, or for criminal gangs that traffic and exploit 
migrants.



                               __________


          Responses to An Additional Question for the Record 
           Submitted to K.T. McFarland by Senator Marco Rubio

    Question 1. The State Department's Trafficking in Persons Report 
2017 places Singapore on Tier 2, stating that ``The Government of 
Singapore does not fully meet the minimum standards for the elimination 
of trafficking; however, it is making significant efforts to do so'' 
and indicates that Singapore still has a ways to go on reducing labor 
trafficking. Do you believe that trafficking in persons is a problem in 
Southeast Asia? In Singapore? Do you commit to working with our 
partners in the Singaporean Government to support their efforts to 
reduce the scourge of trafficking in persons?

    Answer. Yes, I do believe trafficking in persons is a problem in 
Singapore and Southeast Asia. While Singapore has implemented measures 
to curb human trafficking, including through the adoption of the 2015 
Prevention of Human Trafficking Act, Singapore can take additional 
steps to improve its anti-trafficking efforts within the country. If 
confirmed, I commit to work closely with the Government of Singapore, 
the Singapore Interagency Task Force on Trafficking in Persons, and 
Singaporean civil society to address this issue.


                               __________


          Responses to An Additional Question for the Record 
       Submitted to K.T. McFarland by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. One of the greatest advances in human rights and democracy 
in modern times was the collapse of the Soviet Empire and discrediting 
of communism in the late 1980s and early 1990s. It was brought about in 
large part by President Reagan's policies of no longer accepting mere 
coexistence with the Soviet Union but to push toward ending and winning 
the Cold War on our terms without firing a shot. President Reagan and 
his administration pressured the Soviet Union on many fronts: by 
building up America's armed forces, revitalizing our alliances, 
pressuring the Soviet economy, and using the bully pulpit to call out 
the evils of communism and oppression.
    As President Reagan's Principal Deputy Assistant Secretary for 
Public Affairs and the Senior Speechwriter to the Secretary and Deputy 
Secretary of Defense, I had, on many occasions, the privilege of 
crafting the words and articulating the public positions for the senior 
members of the Reagan administration, including the President.
    There are hundreds of millions of people today who are free because 
of Reagan's words.

    Question 2. What are the most pressing human rights issues in 
Singapore? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in the Republic of 
Singapore? What do you hope to accomplish through these actions?

    Answer. As stated in the State Department's annual Human Rights 
Report on Singapore, the Government has broad powers to limit citizens' 
rights on freedoms of speech, assembly association and press, 
effectively silencing political dissent and allowing the controlling 
party to overwhelmingly dominate the political scene. Corporal 
punishment such as caning is used as punishment for some crimes, both 
violent and non-violent. Human trafficking is also a concern in 
Singapore, and the Department of State's 2017 Trafficking in Person's 
Report lists Singapore as a Tier 2 country. Singapore has taken steps 
to curb trafficking through the adoption of the 2015 Prevention of 
Human Trafficking Act, which prohibits all forms of human trafficking 
and sets stringent penalties that meet international standards for 
those found guilty. If confirmed, I will continue to work closely with 
the Government of Singapore and civil society to promote basic freedoms 
in support of their democratic system and to address trafficking in 
persons.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face by the Republic of 
Singapore in advancing human rights, civil society and democracy in 
general?

    Answer. While Singapore has free and fair elections, restrictions 
on media and free speech exist as outlined in our annual Human Rights 
Report, and further progress is needed in stemming human trafficking. 
We regularly discuss our concerns with Singapore, and the country has 
made significant efforts to address human trafficking. We will, 
however, continue to urge the Government of Singapore to take 
additional steps to increase investigations, prosecute trafficking 
cases, and improve victim identification methods. Singapore takes the 
issue of trafficking in persons seriously, and I look forward to 
working with Singapore to find better ways to address this problem and 
other concerns.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Republic of Singapore?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and non-governmental organizations in Singapore.

    Question 5. Will you engage with Singapore on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will work with the Government of 
Singapore to engage on matters of human rights, civil rights, and 
governance. I will also seek to exchange best practices between our 
governments.

    Question 6. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you or do any members of your immediate family have 
any financial interests in the Republic of Singapore?

    Answer. No.

    Question 9. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I value the diversity of our Foreign Service Officer corps, 
and other sources of employees who comprise the staff of Embassy 
Singapore, which reflects all of America. A strong, diverse workforce 
ensures we craft the best possible solutions for the foreign policy 
challenges facing the United States. I will make it a high priority to 
support my staff at the Embassy, particularly those from diverse 
backgrounds or underrepresented groups. I will also actively engage the 
other leaders at the Mission to prioritize mentoring and ensure that we 
are developing a new generation of diplomats to represent our country 
effectively.

    Question 10. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I will make it clear to the supervisors and all employees 
at our Mission that I value a respectful and inclusive work environment 
and will hold supervisors accountable for abiding by the leadership and 
management principles established by the Department of State, such as 
valuing and developing our people. As I have done throughout my career, 
I will seek to model this behavior through my own leadership of the 
Mission.

    Question 11. Do you believe the United States should lift sanctions 
on Russia?

    Answer. No, not until Moscow reverses the actions on Ukraine and 
Crimea that triggered sanctions in the first place.

    Question 12. Can you share with the committee during your time as a 
national security advisor to candidate and then-President elect Trump 
any meetings, contacts or conversations you had with the Russian 
Government or any Russian-connected individuals?

    Answer. To the best of my recollection, there are only two 
occasions when I encountered any Russian officials during my time as a 
national security advisor to candidate and then-President-Elect Trump.
    The first was at the Republican National Convention in Cleveland. 
The Russian ambassador, Sergey Kislyak, was one of two hundred or so 
attendees at the Global Partners in Diplomacy Conference hosted by the 
Republican National Committee, the Heritage Foundation and the State 
Department for members of the diplomatic corps. I understand a similar 
event was held for the Diplomatic Corps at the Democratic National 
Convention.
    I was the moderator of a multi-person panel discussion on then-
candidate Trump's foreign policy held at Case Western Reserve 
University. When we opened the floor to questions from the audience, 
Ambassador Kislyak asked a question of the panel. I had no personal 
contact with the Ambassador during the conference. In fact, I did not 
know who he was until after he identified himself to the audience 
during his question.
    The second was in a receiving line on January 19, 2017. I gave a 
speech at a luncheon hosted by the Business Council for International 
Understanding for approximately 100 members of the diplomatic corps and 
business community. Ambassador Kislyak attended the luncheon, and we 
exchanged brief pleasantries in the receiving line, as I did with the 
thirty or so ambassadors and businessmen who also participated in the 
receiving line.

    Question 13. At the Global Partners in Diplomacy conference, a RNC 
event hosted in Cleveland, press reports say you and Ambassador Kislyak 
were both in attendance. Did you have any contact or conversations with 
Russian officials or conduits at this event?

    Answer. Please see the answer to Question 12 (above).

    Question 14. On Islam, you have said ``Islam is religion, Islamism 
is death cult.'' You said that the United States ``reluctance to hurt 
their feelings'' and ``political correctness is getting people killed'' 
Lt. Gen. Michael Flynn, who brought you on to the Trump team called 
Islamism a ``vicious cancer inside the body of 1.7 billion people'' 
that has to be ``excised''. Singapore has a population that is 15 
percent Muslims. Like in any other country, Muslims in Singapore are 
Members of Parliament, mayors, and crucial members of the Singapore 
society. How can you represent U.S. values abroad, which was founded on 
the principles of religious freedom, diversity and inclusion, while 
also believing that Islam is a death cult?

    Answer. Let me clarify the question. I believe Islam is a religion, 
and not a death cult. I do, however, believe Islamism, is a death cult. 
I have tried to be careful to make the distinction between Islam on the 
one hand, and Islamism as practiced by ISIS, Al Qaeda, and the Islamic 
State on the other. I believe Islamism, which promotes suicide bombers, 
and the killing of innocents, including women and children is a death 
cult.
    In my previous position as Deputy National Security Adviser, I had 
several conversations with Singaporean officials, several of whom are 
Muslim, about the threat posed by the spread of radical Islam. They 
expressed concerns, and I agreed, that it presents a growing security 
issue in Southeast Asia.
    Like the 68 member Global Coalition to Defeat ISIS, I believe 
Islamism, Islamists and radical terrorists pose a threat to 
international peace and stability and continue to commit gross abuses 
to human rights and violations of international law.

    Question 15. In 2012, when asked about waterboarding you said 
``Even if it's torture, it's probably worth doing.'' I believe 
waterboarding, which is classified by the United Nations as torture, is 
not only morally objectionable but has proven repeatedly to not work. 
Can you share with the committee your current views on torture?

    Answer. Thank you for the opportunity to clarify my position. As I 
said during my nomination hearing, I have come full circle in my 
thinking on this issue in the last five years. I have listened to the 
arguments of Senator McCain, Senator Graham, General (now Defense 
Secretary) Mattis and others that torture is ineffective, violates 
international and U.S. law, and leaves our own military open to torture 
by others. Finally, I have come to agree with them that there is 
nothing more important in this regard than living our values.

    Question 16. Are there instances in which torture are justifiable 
to you?

    Answer. No.

    Question 17. Singapore is a regional hub for American business, and 
much of the U.S. Ambassador's job inevitably touches on American 
business interests. Singapore's penal code criminalizes homosexuality, 
and the country offers no protections against discrimination on the 
basis of sexual orientation and gender identity. This poses a negative 
impact not only on U.S. companies' gay and lesbian employees and 
families, but on talent assignment by American companies. What would 
you do as ambassador, in partnership with U.S. companies, to encourage 
Singapore to rescind its anti-LGBT laws and offer employment and other 
protections for LGBT people?

    Answer. LGBT rights are a topic of discussion in our conversations 
with the Singaporean Government. We continue to urge equal treatment 
for all and to underscore our commitment to diversity and inclusion. If 
confirmed, I will engage not only with the Singaporean Government, but 
also with civil society organizations, the private sector, and like-
minded missions to further these discussions.

    Question 18. Singapore-based businesses have been accused in recent 
years of helping North Korea evade sanctions. In 2014, the Singapore-
registered Chinpo Shipping company was criminally charged in Singapore 
for doing business with North Korea's Ocean Maritime Management 
company, which had been the target of international sanctions. If 
confirmed, how do you see your role as making sure that Singapore fully 
implements and enforces its international commitments made to 
Singapore?

    Answer. North Korea's provocations threaten international peace and 
security. Singapore has reiterated its commitment to fully implement 
all UN Security Council resolutions on North Korea, including 
establishing new visa requirements for all DPRK passport holders. If 
confirmed, I will continue to work closely with Singapore to coordinate 
our diplomatic, military, and economic response to North Korea's 
nuclear, ballistic missile, and proliferation programs.

    Question 19. What role do you think Singapore should play in 
addressing maritime tensions in the South China Sea?

    Answer. Singapore is a critical partner in promoting a regional 
architecture that maintains security and promotes economic prosperity 
across the Asia-Pacific. Singapore is one of the founding members of 
ASEAN, and views ASEAN as a forum to manage maritime disputes in the 
South China Sea. We believe that Singapore has an important role to 
play in helping bring forward a unified ASEAN position that bolsters 
international law and calls for peaceful settlement of disputes. As 
China's country coordinator in ASEAN for the next few years, Singapore 
will also play a significant role in shaping the substance of Code of 
Conduct negotiations between ASEAN and China.

    Question 20. If confirmed, how will you ensure that Singapore and 
the United States work productively to address tensions and seek common 
interests in the South China Sea?

    Answer. Singapore has a national interest in ensuring freedoms of 
navigation and overflight, respect for international law, unimpeded 
lawful commerce, and the peaceful resolution of disputes in the South 
China Sea. If confirmed, I will continue to discuss with Singapore how 
we can uphold rights and freedoms in the South China Sea that are 
reflected in international law.

    Question 21. Singapore was one of 11 nations that negotiated the 
proposed Trans-Pacific Partnership (TPP) trade agreement with the 
United States. In an October 2016 interview, Singapore Prime Minister 
Lee Hsien Loong said failure to ratify the proposed TPP would be ``a 
very big setback for America,'' and that the result would be ``your 
standing goes down with many countries around the world.'' If 
confirmed, how will you address concerns about U.S. credibility and 
leadership in regional and global trade policy voiced by Singapore, a 
nation heavily dependent on trade?

    Answer. Our economic engagement in the Asia-Pacific does not depend 
on a single agreement or initiative. The United States remains fully 
committed to strengthening its economic relationships across the 
region, including in Singapore. The Asia-Pacific remains a top priority 
for this administration because it is hugely consequential to the 
future security and economic prosperity of the United States. The high 
tempo of engagement by senior officials in Asia reflects the 
administration's focus on the region. The United States and Singapore 
have enjoyed a free trade agreement (FTA) since 2004, and we continue 
to work together with Singapore through our membership in APEC and 
engagement through ASEAN to promote free and fair trade in the region. 
If confirmed, I will continue to work with Singapore to promote 
economic growth and high standards for trade and investment throughout 
the region.

    Question 22. What role does Singapore play in the Trump 
administration 's strategy in Asia?

    Answer. Singapore's strategic location in Southeast Asia makes it a 
hub for people and goods transiting through the region. It is a key 
partner for the United States on counter-proliferation, 
counterterrorism, and cybersecurity--priority issues for both of our 
countries. Our cooperation on both the military and law-enforcement 
fronts is substantial, and based on 50 years of partnership. If 
confirmed, I will engage immediately and effectively with the highest 
levels of Singaporean Government to determine how to strengthen our 
partnership in these areas, and to empower my staff to grow the working 
level relationships that are key to day-to-day cooperation.

    Question 23. Do you see Singapore's role as different compared to 
its role during the Obama administration ?

    Answer. Singapore's role under the current administration is deeply 
important and bilateral relations remain strong. The U.S.-Singapore 
relationship is anchored by enduring economic and political ties, and 
for over 50 years we have enjoyed a close partnership based on our 
shared vision for peace and prosperity.

    Question 24. How do you assess U.S.-Singapore security relations 
following the 2015 signing of an ``enhanced'' Strategic Framework 
Agreement?

    Answer. Singapore is one of our strongest defense partners in 
Southeast Asia, and is committed to regional stability and security. 
Singapore provides the U.S. military access to bases, ports, and 
runways and has over 1,000 military personnel and four permanent air 
force detachments training in the United States.

    Question 25. Where do you see opportunities for closer cooperation 
in areas where the United States and Singapore could benefit from doing 
more?

    Answer. As technological advancement continues to create a more 
inter-connected world that is increasingly vulnerable to cyber threats, 
greater cyber security cooperation would benefit both Singapore and the 
United States. Singapore leads the region on cyber security. In 2016, 
it launched the ASEAN Ministerial Conference on Cybersecurity and a 
$7.5 million regional capacity building program. Through the U.S.-
Singapore Third Country Training Program, the United States and 
Singapore are working closely together to conduct joint capacity 
building courses and trainings for countries across Southeast Asia in 
areas such as cyber security and cyber-crime. If confirmed, I will 
continue to support efforts to deepen our cybersecurity cooperation, 
and work closely with our Singapore partners to identify all areas of 
potential collaboration in our mutual interests.

    Question 26. How do you assess the utility of the Littoral Combat 
Ship (LCS) rotations that began in 2013?

    Answer. The Littoral Combat Ship rotations underscore strong U.S.-
Singapore defense ties. The strategic benefits of our cooperation with 
Singapore are considerable. In addition to supporting rotational 
deployments of U.S. P-8 aircraft and U.S. Littoral Combat Ships, 
Singapore allows U.S. Navy helicopters to use its airfields.



                               __________


          Responses to An Additional Question for the Record 
            Submitted to K.T. McFarland by Senator Tim Kaine

Views on Brexit
    Question . During your hearing, I asked you if press reports about 
your support for the Brexit vote were accurate. You testified that you 
believed that the will of the British people should be respected. When 
I asked you in follow up whether you had ever expressed personal 
support or opposition for Brexit, you could not recall.
    Press accounts reveal that you celebrated Brexit, calling it 
Britain's opportunity to ``leave a sinking ship'' and said that 
``Europe is collapsing,'' comparing it to the Titanic. In a June 24, 
2016 article titled ``After Brexit: Mr. Trump (or Mrs. Clinton) let's 
resurrect the Anglo-American alliance,'' you wrote: ``The British 
people just voted to take back self-rule from the faceless, 
unaccountable, arrogant, power-grabbing bureaucrats in Brussels.''

   Can you explain why you supported Brexit, if you still hold that it 
        was a positive outcome for the UK and Europe, whether you still 
        believe that EU officials are ``arrogant, power-grabbing 
        bureaucrats,'' and whether you continue to believe that Europe 
        is collapsing?

    Answer. I supported the view held by many conservatives, especially 
in the Tory Party, that British sovereignty was being eroded in favor 
of the European Union. One British politician in particular who helped 
shape my views was Steve Hilton, former Senior Adviser to Prime 
Minister David Cameron. According to them, Brexit would allow British 
to reclaim sovereignty over issues like immigration, regulatory reform 
and pursue a pro-growth economic policy, cut taxes and slow the 
expansion of the welfare state.
    Since the Brexit vote, the IMF has predicted that the British 
economy will expand by 2 percent in 2017, making it one of the fastest 
growing economies in Europe, and the second fastest-growing advanced 
economy after the U.S.I believe that the constant expansion of the 
welfare state in many European countries, coupled with slow economic 
growth and high deficits, plus the added financial, social services and 
security burden of large influx of migrants in some of the member 
states will put pressure on these states as well as the European Union.



                               __________


          Responses to An Additional Question for the Record 
           Submitted to K.T. McFarland by Senator Cory Booker

    Question 1.  You wrote an op-ed titled ``Putin is the one who 
really deserves that Nobel peace prize.'' In that piece, regarding 
President Obama's Syria policy, you say that ``Putin has saved the 
world from near-certain disaster.''

   Do you agree that Putin regularly has dissidents, opposition 
        leaders and journalists jailed or murdered?

    Answer. Yes.

    Question 2.  Considering your op-ed on Putin was regarding Syria 
policy, do you disagree with the assessment that Russian forces are 
actively supporting the Assad regime through airstrikes that have 
killed thousands of Syrians, particularly in Aleppo?

    Answer. No. I don't disagree.
    To put that opinion piece in context, I wrote it in 2013, after 
Russia offered to take the lead in brokering a U.S.-Russian-Syrian deal 
to dismantle Syria's chemical weapons stockpile. At the time President 
Obama and Secretary Kerry praised the Russians, as did most members of 
Congress from both sides of the political aisle.
    In the four years since, however, Russia has invaded Ukraine, 
murdered opposition leaders, propped up Assad in spite of his vicious 
pursuit of the Syrian civil war, and stood by while the Assad regime 
used chemical weapons against its own civilian population, including 
women and children.
    One of the early issues the Trump administration confronted was 
Assad's renewed use of chemical weapons with attacks against innocent 
civilians, including women and children. I strongly supported the 
President's decision to attack the Syrian airfield involved in those 
attacks.

    Question 3.  According to Politico, while you served as Deputy 
National Security Advisor, you gave President Trump a fake 1970s Time 
magazine cover warning of a coming ice age. The photoshopped magazine 
cover circulated around the internet several years ago, but was 
debunked in 2013.
    You also reportedly gave President Trump another fake 2008 Time 
magazine cover about surviving global warming. President Trump 
reportedly ``got lathered up about the media's hypocrisy'' but ``staff 
chased down the truth and intervened before Trump or tweeted or talked 
publicly about it.''

   Did you provide President Trump ``fake news'' about climate change 
        to promote a policy position antagonistic to the Paris climate 
        agreement?

    Answer. No.
    Senator Booker, Thank you for the opportunity to set the record 
straight.
    It was an honest mistake on my staff's part, with no intention to 
deceive or to make the case against climate change.
    I do believe the climate is changing, and that humans play a role 
in it. I would also point out that my husband was one of the founding 
directors of the World Resources Institute in the early 1980s, one of 
the early pro-environmental policy groups in the country. He had my 
full support in that endeavor.

    Question 4.  If yes, why did you provide President Trump fake Time 
magazine covers taking contrasting positions on climate change?

    Answer. N/A

    Question 5.  Recent reporting has suggested that Lt. Gen. Flynn was 
warned by senior members of President Trump's transition team about the 
risks of his contacts with Russian ambassador Sergey Kisklak. Flynn was 
reportedly told during a late November meeting that Russian ambassador 
Sergey Kislyak's conversations were almost certainly being monitored by 
U.S. intelligence agencies, officials said, a caution that came a month 
before Flynn was recorded discussing U.S. sanctions against Russia with 
Kislyak.
    Trump transition official Marshall Billinsglea, warned Flynn that 
Kislyak was likely a target of U.S. surveillance and that his 
communications--whether with U.S. persons or superiors in Moscow--were 
undoubtedly being monitored by the FBI and National Security Agency, 
according to officials familiar with the exchange. Billingslea then 
said that he would obtain a copy of the profile of Kislyak, officials 
said, a document that Billingslea urged Flynn to read if he were going 
to communicate with the Russian envoy. Flynn's reaction was 
noncommittal, officials said, neither objecting to the feedback nor 
signaling agreement. Shortly thereafter, during the week of Nov. 28, 
Billingslea and other transition officials met with lower-level Obama 
administration officials in the Situation Room at the White House.
    Furthermore, Ranking Member of the House Oversight and Government 
Reform Committee Elijah Cummings sent a letter to Vice President-elect 
and Director of the Transition Mike Pence on November 28, 2016, 
outlining Flynn's Russian and Turkish conflicts of interest. In that 
letter, Ranking Member Cummings explicitly laid out how Lt. Gen. 
Flynn's firm was being paid to lobby on behalf of Turkish business 
interests closely connected to Turkish President Recep Tayyip Erdogan. 
The letter also made clear the Flynn was paid to travel to Moscow for a 
speech in December 2015 and join Russian President Vladimir Putin at 
the head table during a dinner honoring the Kremlin-backed media 
network RT.

   Did you ever discuss any of General Flynn's contacts with Russian 
        ambassador Sergey Kislyak directly with General Flynn?

    Answer. I am not aware of any of the issues or events as described 
above.

    Question 6.  As a Trump transition official, did you have any 
contacts with Russian officials after your meeting with Ambassador 
Kislyak at the Republican National Convention?

    Answer. As a first matter, I did not meet Ambassador Kislyak at the 
Republican National Convention. He was one of two hundred or so 
attendees at the Global Partners in Diplomacy Conference hosted by the 
Republican National Committee, the Heritage Foundation and the State 
Department for members of the diplomatic corps. I understand a similar 
event was held for the Diplomatic Corps at the Democratic National 
Convention.
    I was the moderator of a multi-person panel discussion on then-
candidate Trump's foreign policy held at Case Western Reserve 
University. When we opened the floor to questions from the audience, 
Ambassador Kislyak asked a question of the panel. I had no personal 
contact with the Ambassador; in fact, I did not know who he was until 
after he identified himself to the audience during his question.
    To the best of my recollection, the only other occasion when I 
encountered any Russian officials as a national security adviser to 
then-candidate or President-Elect Trump was in a receiving line on 
January 19, 2017. I gave a speech at a luncheon hosted by the Business 
Council for International Understanding for approximately 100 members 
of the diplomatic corps and business community. Ambassador Kislyak 
attended the luncheon, and we exchanged brief pleasantries in the 
receiving line, as I did with the 30 or so diplomats and businessmen 
who participated in the receiving line.
    To the best of my knowledge, I did not encounter any other Russian 
officials during the transition.

    Question 7.  Were you aware of General Flynn's conversation with 
Russian ambassador Sergey Kislyak on December 29, 2016 at any point 
before Vice President Pence's interview with CBS's ``Face the nation' 
on January 15, 2017? If you were aware of Flynn's conversation with the 
Russian ambassador prior to Pence's interview, did you discuss Flynn's 
contact with Kislyak with Pence or any other senior transition 
officials?

    Answer. Any conversations I may or may not have had with General 
Flynn would have been confidential. As such, it would be inappropriate 
for me to comment on them.

    Question 8.  If you were aware of Flynn's conversation with the 
Russian ambassador prior to Pence's interview, did you discuss Flynn's 
contact with Kislyak with Pence or any other senior transition 
officials?

    Answer. Any conversations I may or may not have had with the Vice 
President would have been confidential. As such, it would be 
inappropriate for me to comment on them.

    Question 9  Did you participate in any transition team meetings 
with Obama officials regarding General Flynn?

    Answer. No.

    Question 10.  After Vice President Elect Pence received the 
November 18, 2016 from Congressman Cummings regarding General Flynn's 
lobbying for Turkish interests and paid appearance with Russian 
President Vladimir Putin, were you made aware of this letter?

    Answer. No.

    Question 11.  Did you ever discuss Ranking Member Cummings November 
18, 2016 letter to Vice President Pence with Vice President Pence? If 
so, when? Please provide details on the nature of those conversations 
if they took place.

    Answer. Any conversations I may or may not have had with the Vice 
President would have been confidential. As such, it would be 
inappropriate for me to comment on them. However, generally speaking, 
the letter described above would have been outside of my area of 
responsibility.

    Question 12.  Were you ever in contact with Vice President elect 
Pence, transition official Marshall Billingslea or other transition 
officials about General Flynn's work on behalf of Turkey or Russian 
payments?

    Answer. Any conversations I may or may not have had with the Vice 
President would have been ere confidential. As such, it would be 
inappropriate for me to comment on them. However, the topic described 
above would have been outside of my area of responsibility.

    Question 13.  Did you ever speak to transition official Marshall 
Billingslea about his meeting with General Flynn in late November 2016 
where Billingslea expressed concern to Michael Flynn about his contacts 
with Russian ambassador Sergey Kislyak?

    Answer. Any conversations I may or may not have had with Marshall 
Billingslea would have been confidential. As such, it would be 
inappropriate for me to comment on them. However, the topic described 
above would have been outside of my area of responsibility.



                               __________

 Letters Submitted in Support of K.T. McFarland's Confirmation As U.S. 
                        Ambassador to Singapore
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               __________



                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JULY 26, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake [presiding], Gardner, Young, 
Booker, Coons, and Kaine.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today the committee will consider the nominations of three 
experienced career Foreign Service officers to be the U.S. 
Ambassadors to Ethiopia, Sierra Leone, and Algeria. I was 
pleased to meet each of today's nominees in my office earlier 
and to learn about them and this potential posting.
    Ethiopia is a key regional security partner, helping to 
counter al Shabaab in the region, helping to diffuse a violent 
crisis that we just learned more about in South Sudan.
    Sierra Leone's economy continues to struggle while the 
country is still recovering from the devastation brought by the 
Ebola virus.
    Algeria and the United States work together on important 
counterterrorism issues, but more can be done on the economic 
front to allow for greater opportunity and investment in that 
country.
    Before I recognize Ranking Member Booker, let me take a 
moment to thank the families who are here. We know that the 
work is hard and separation sometimes is difficult when the 
post is in a far-flung place, as all of these are. So we 
appreciate your sacrifice and are glad to have you here today. 
And I am sure you will be introduced later.
    Senator Booker?

               STATEMENT OF HON. CORY A. BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I just want to echo my colleague and friend 
and his comments. It is extraordinary the service you all have 
already rendered to the United States of America. Citizenship 
in the United States has tremendous blessings and privileges, 
and most of us luxuriate in rights that were fought for and 
struggled for by generations before. But you all are not just 
enjoying your privileges, but you are showing that your 
commitment to the obligations of citizenship through service 
under difficult conditions, difficult circumstances, and a 
service that necessitates sacrifice. And for that, I am just 
very, very grateful.
    As Senator Flake said, it is not just you. Obviously, when 
you all are serving, it is your entire families as well. And so 
my gratitude to all of you for stepping forward to these 
difficult challenging positions of leadership in areas of the 
world that desperately need leadership and service and the best 
of America. So thank you for your willingness to represent 
that.
    Senator Flake. Well, thank you.
    Our first nominee is Michael Arthur Raynor, former 
Ambassador, who has served as an American diplomat since 1988. 
He served in eight missions, including Benin, Zimbabwe, 
Namibia, Guinea, Djibouti, and Congo Brazzaville.
    Our second nominee, Maria Brewer, has served one of her 
first postings as a Foreign Service officer in Sierra Leone. So 
this will be a return, if she is successful, to the country for 
which she is now nominated. That is a great thing, I am sure, 
the prospect of returning.
    Lastly, we will hear from John Desrocher currently serving 
as Deputy Assistant Secretary for Egypt and Maghreb Affairs in 
the Bureau of Near Eastern Affairs at the Department of State.
    With that, the committee recognizes Ambassador Raynor 
first. Please feel free to introduce any family that you have 
here as well.

STATEMENT OF HON. MICHAEL ARTHUR RAYNOR, OF MARYLAND, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
   OF THE UNITED STATES OF AMERICA TO THE FEDERAL DEMOCRATIC 
                      REPUBLIC OF ETHIOPIA

    Ambassador Raynor. Thank you very much. Mr. Chairman, 
Ranking Member Booker, members of the committee, I am honored 
to appear before you today as President Trump's nominee to 
serve as Ambassador to the Federal Democratic Republic of 
Ethiopia. I am grateful to the President and Secretary 
Tillerson for their trust and confidence in me.
    I am also very proud to have my family with me today: my 
wife Kate, my son Bradley, and my daughter Emma. I could not be 
more grateful for their support.
    During my 29 years as a Foreign Service officer, I have 
developed substantial African policy and managerial experience 
and a record of leadership fostering strong performance from 
interagency teams and challenging environments.
    If confirmed as the next U.S. Ambassador to Ethiopia, my 
top priority will be the security, interests, and welfare of 
American citizens. I will also seek to strengthen our strong 
partnerships with Ethiopia, to support, health, education, food 
security, and economic growth.
    Starting in November 2015, Ethiopia began experiencing 
widespread unrest, resulting in the imposition of a state of 
emergency. If confirmed, I will advocate for full respect of 
the rights guaranteed under Ethiopia's constitution.
    Ethiopia has a deep commitment to promoting regional 
stability and countering terrorism. If confirmed, I intend to 
sustain and strengthen this important security partnership.
    U.S. national interests also lie in supporting Ethiopia's 
economic progress because a sound business environment is a 
strong driver of good governance, development, and long-term 
stability.
    Thank you for this opportunity to address you and for 
considering me for such an important posting. I look forward to 
answering any questions you may have.
    [Ambassador Raynor's prepared statement follows:]


              Prepared Statement of Michael Arthur Raynor

    Mr. Chairman, Ranking Member Booker, and members of the committee, 
I am honored to appear before you today as President Trump's nominee to 
serve as Ambassador to the Federal Democratic Republic of Ethiopia. I 
am grateful to President Trump and Secretary Tillerson for their trust 
and confidence in me. I am also very proud to have my family with me 
today: my wife Kate; my son Bradley, who is serving with Teach for 
America in Buffalo, New York; and my daughter Emma, who is going into 
her senior year at Hamilton College in Clinton, New York.
    During my 29-year career as a Foreign Service Officer, I have 
developed substantial African policy and managerial experience, and a 
record of leadership fostering interagency collaboration, strong 
performance from diverse teams, and high morale in challenging 
environments. As U.S. Ambassador to Benin, I strengthened the country's 
democratic trajectory, elicited strong anti-terrorism cooperation, and 
helped improve the business climate while promoting U.S. commercial 
interests. As Assistant Chief of Mission in Afghanistan, I coordinated 
some of the United States' most complex law enforcement and foreign 
assistance programs as well as the embassy's large security and 
management operations, while also engaging with the Afghan Government 
on security and governance challenges. As Executive Director of the 
Bureau of African Affairs, I led management and crisis support to over 
50 African posts.
    If confirmed as the next U.S. Ambassador to Ethiopia, my top 
priority will be the security, interests, and welfare of American 
citizens. Whether ensuring responsive consular services, advocating for 
U.S. businesses, or strengthening partnerships against terrorism, this 
priority will guide the Embassy's activities and objectives. If 
confirmed, I also commit to doing everything I can to ensure that the 
dedicated women and men working at the U.S. Embassy in Addis Ababa are 
safe, secure, and have every opportunity for success.
    The United States has strong partnerships with Ethiopia, in 
alignment with the Ethiopian Government's own priorities, to support 
health, education, food security, and economic growth. These programs 
contribute meaningfully to Ethiopia's governance, stability, and 
prosperity. However, starting in November 2015, Ethiopia began 
experiencing widespread unrest, resulting in the imposition of a state 
of emergency that has included arbitrary detention, excessive use of 
force, and restrictions on civil and political freedoms. The unrest 
stems from complex factors including land tenure, ethnic tensions, and 
joblessness, but is rooted in popular desires for greater political 
freedom and civil liberties. If confirmed, I will advocate for full 
respect of the rights guaranteed under Ethiopia's constitution, as well 
as for reforms that strengthen democratic institutions. Such steps will 
not only support Ethiopian's own aspirations for stability and 
development, as well as its efforts against violent extremism in the 
region, but they will also strengthen the foundation for the U.S.-
Ethiopia partnership in areas of vital interest to both nations.
    Ethiopia is a strong partner to the United States in the Horn of 
Africa, and has a deep commitment to promoting regional stability and 
countering terrorism. This engagement includes Ethiopia's significant 
contributions to the African Union's counterterrorism and peace support 
mission in Somalia and to the United Nations' peacekeeping efforts in 
South Sudan, as well as Ethiopia's leading role in the South Sudanese 
peace process. Ethiopia also contributes to regional stability as the 
second-largest host of refugees in Africa. If confirmed, I intend to 
sustain and strengthen this important security relationship.
    U.S. national interests lie in supporting Ethiopia's economic 
progress as well, because economic freedom and a sound business 
environment are strong drivers of good governance, rule of law, and 
long-term stability. These factors also create opportunities for 
American businesses, and if confirmed, I will work to promote a 
business climate in Ethiopia that encourages U.S. private sector 
activity and ensures a level playing field for U.S. firms.
    Ethiopia is a dynamic nation with an extraordinary history of 
independence and accomplishments as well as a future of enormous 
potential. I am honored by your consideration of me to serve in such an 
important posting. If confirmed, I will welcome input and advice from 
you and your staff on any aspect of the multi-faceted relationship 
between the United States and Ethiopia. I will also be pleased, if 
confirmed, to receive you and your staff in Ethiopia and to keep you 
apprised of the activities of the U.S. Embassy in Addis Ababa.
    Thank you for this opportunity to address you. I look forward to 
answering any questions you may have.


    Senator Flake. Thank you so much, Ambassador Raynor.
    Ms. Brewer?

 STATEMENT OF MARIA E. BREWER, OF INDIANA, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
       STATES OF AMERICA TO THE REPUBLIC OF SIERRA LEONE

    Ms. Brewer. Mr. Chairman, Ranking Member Booker, and 
members of the committee, thank you for your consideration of 
my nomination to be the U.S. Ambassador to the Republic of 
Sierra Leone.
    I would like to thank President Trump and Secretary 
Tillerson for their trust in me to lead the U.S. embassy.
    And I am honored and fortunate to have my husband Mark and 
our 8-year-old daughter Arina here with me today. I thank both 
of them for their constant love and support. Without them, I 
would not be here before you.
    Senator Flake. That is a nice looking young ambassador you 
have there. [Laughter.]
    Ms. Brewer. We have a strong relationship with Sierra 
Leone. If confirmed, I will work to enhance our bilateral 
relationship while maintaining the U.S. principles of promoting 
democracy and the rule of law. If confirmed, I will advocate 
for transparency, accountability, and economic stability.
    But in addition to these policy aims, I hold paramount the 
safety and security of U.S. citizens in Sierra Leone and the 
entire U.S. embassy team.
    My initial introduction to Africa was as a first-tour 
officer assigned to Lagos, Nigeria. I was then posted to 
Freetown, Sierra Leone. At the time, Sierra Leone was suffering 
through the last years of its civil war. But despite their many 
hardships, the positive spirit and the resilience of the people 
of Sierra Leone both moved and impressed me.
    After several tours in South Asia, I returned to the 
African Affairs Bureau in Washington, D.C. from 2010 until 2013 
and then was Deputy Chief of Mission in Abuja, Nigeria, 2013 to 
2016.
    So thank you, Mr. Chairman, for the opportunity to appear 
before you today. I welcome your questions.
    [Ms. Brewer's prepared statement follows:]


                Prepared Statement of Maria Elena Brewer

    Mr. Chairman, Ranking Member Booker, and members of the committee, 
thank you for this opportunity to appear before you and for your 
consideration of my nomination by President Trump to be the next U.S. 
Ambassador to the Republic of Sierra Leone. I would like to thank 
President Trump and Secretary Tillerson for their trust in me to lead 
the U.S. Embassy and to maintain our relationship with Sierra Leone. If 
confirmed by the U.S. Senate, I will uphold that trust. I am honored 
and very fortunate to have my husband, Mark, and our eight-year-old 
daughter, Arina, here with me today. I thank both of them for their 
constant love and support. Without them, I would not be here before you 
today.
    Sierra Leone has shown remarkable progress in maintaining peace, 
strengthening democracy, and working toward an environment suitable for 
economic growth. Its perseverance is especially remarkable considering 
the challenges it has endured. After its devastating decade-long civil 
war, Sierra Leone rebuilt itself and made notable economic progress. 
Sierra Leone saw impressive economic growth in 2012 and 2013. But in 
2014, the Ebola crisis struck. By late 2015, roughly 14,000 individuals 
in Sierra Leone contracted the disease, of whom approximately 3,900 
died.
    In late 2015, Sierra Leone adopted a post-Ebola recovery plan, 
which received indirect and direct U.S. support. While damage from the 
Ebola crisis is still evident, collaborative efforts such as USAID's 
Ebola Transmission Prevention and Survivor Services Project have helped 
Sierra Leone to make great strides in combatting the epidemic and 
advancing in its aftermath. Sierra Leone ranks eighth from the bottom 
among countries on the U.N.'s Human Development Index. One in eight 
Sierra Leonean children will not live to age five. Sierra Leone has one 
of the world's highest rates of maternal mortality. Sierra Leone must 
allocate funds and resources to public health; doing so will be crucial 
to the country's future progress. If confirmed, I will work with Sierra 
Leonean leaders to ensure that public health remains a top national 
priority. Good governance and the rule of law will be key. The United 
States has made great inroads in working with Sierra Leone. Through 
programs funded by the Department of State's Bureau of Immigration, 
Narcotics, and Law Enforcement Affairs, Embassy colleagues have built 
relationships that have resulted in tangible diplomatic and law 
enforcement achievements. These include extraditing a U.S fugitive and 
repatriating Sierra Leonean nationals from the United States. These 
projects have bolstered access to justice, respect for human rights and 
the rule of law, and security for ordinary Sierra Leonean citizens. If 
I am confirmed, I would plan to increase collaborative efforts toward 
mutually beneficial goals for Sierra Leone and for our bilateral 
relationship.
    Also if confirmed, I will continue our focus on strengthening 
democratic institutions and combatting corruption. Since 2002, Sierra 
Leone has held three successful presidential and legislative elections 
that were broadly judged to be free, fair, and transparent. Sierra 
Leone has an important presidential election in March 2018. If 
confirmed, I will make it a priority in my first months to engage with 
candidates and other stakeholders to advocate for another free and fair 
election with a peaceful transfer of power.
    I will also work to continue U.S. support for market-oriented 
endeavors and to boost employment in Sierra Leone. The International 
Monetary Fund predicts growth of 6-7 percent for Sierra Leone in 2017 
and 2018. If confirmed, I will advocate for transparency, 
accountability, and economic sustainability. And at the same time, I 
will work closely with the U.S. business community to encourage greater 
trade and investment between our two countries as a way to spur 
prosperity both for U.S. citizens and Sierra Leoneans.
    I should emphasize that we are starting off on a strong footing 
with our relationship with Sierra Leone. We have many shared goals, as 
evinced by our successful projects in country. If confirmed, I will 
enhance our strong bilateral relationship as we work together to 
achieve new goals in an increasingly globalized world, while 
maintaining our principles of promoting democracy and rule of law.
    In addition to these policy aims, I hold paramount the safety and 
security of hundreds of U.S. citizens resident in Sierra Leone, and the 
entire U.S. Embassy team, including U.S. citizen employees, their 
families, and our Sierra Leonean colleagues. If confirmed, I would do 
all within my power to ensure the security of our Mission and oversee 
its smooth operation.
    My initial introduction to Africa was as a first-tour, entry-level 
officer, when I was in Lagos, Nigeria. I was then posted to Freetown, 
Sierra Leone, for my second tour from 1999 through 2001. At the time, 
Sierra Leone was suffering through the last years of their brutal civil 
war. Despite their many hardships, the positive spirit and resilience 
of the people of Sierra Leone moved and impressed me. After several 
tours in South Asia, including India, Sri Lanka, and Pakistan, I 
returned to the African Affairs Bureau in Washington, DC., serving in 
the Executive Office from 2010 until 2013. I then served as the Deputy 
Chief of Mission in Abuja, Nigeria from 2013 until 2016. If confirmed, 
I would bring a strong understanding of the African continent and its 
people, as well as the knowledge and experience to successfully advance 
our national interests in Freetown.
    Thank you, Mr. Chairman for the opportunity to appear before you 
today. I welcome your questions.


    Senator Flake. Thank you.
    Mr. Desrocher?

STATEMENT OF JOHN P. DESROCHER, OF NEW YORK, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
   STATES OF AMERICA TO THE PEOPLE'S DEMOCRATIC REPUBLIC OF 
                            ALGERIA

    Mr. Desrocher. Chairman Flake, Ranking Member Booker, 
members of the committee, thank you for the opportunity to 
appear before you today.
    I am honored that President Trump has nominated me to be 
the U.S. Ambassador to Algeria, and I deeply appreciate the 
confidence he and Secretary Tillerson have shown by making this 
nomination.
    I am also very pleased that my wife Karen could join me 
here today. She has put up with a lot of those separations that 
you mentioned, Mr. Chairman.
    If confirmed by the Senate, my first priority will be to 
keep safe the people who serve in the U.S. embassy in Algiers 
and the American expatriate community in Algeria. I will also 
work to advance three critical U.S. interests: strengthening 
our bilateral security cooperation to fight terrorism and 
promote regional stability; expanding bilateral trade and 
investment; and working with Algerian counterparts as they 
pursue political and economic reforms that will foster 
stability as Algeria navigates new economic realities.
    The U.S.-Algeria relationship has grown broader and deeper 
in recent years. In the last several years, we have consulted 
extensively at high levels and with broad interagency 
participation regarding terrorism in North Africa. Our 
governments also hold bilateral strategic dialogues and joint 
military dialogues on a recurring basis. Our embassy in Algeria 
also facilitates a broad and ever-growing spectrum of bilateral 
cooperative programs that strengthen our security, economic, 
governance, educational, and cultural ties. This speaks to the 
value that both of our countries place on our growing 
partnership.
    Thank you, Mr. Chairman, Ranking Member Booker, and members 
of the committee, for giving me the opportunity to address you. 
It is a great honor to have been nominated as Ambassador to 
Algeria. If confirmed, I look forward to the opportunity to 
lead an active, talented mission at U.S. Embassy Algiers, as we 
work with Algeria to advance our shared interests.
    And I would be happy to take any questions you might have.
    [Mr. Desrocher's prepared statement follows:]


                  Prepared Statement of John Desrocher

    Chairman Flake, Ranking Member Booker, members of the 
committee, thank you for the opportunity to appear before you 
today. I am honored that President Trump has nominated me to be 
the U.S. Ambassador to Algeria, and I deeply appreciate the 
confidence he and Secretary Tillerson have shown by making this 
nomination. I am also very pleased that my wife, Karen, could 
join me here today.
    If confirmed by the Senate, my first priority will be to 
keep safe the people who serve in U.S. Embassy Algiers, and the 
American expatriate community in Algeria. I will also work to 
advance three critical U.S. interests: (1) strengthening our 
bilateral security cooperation to fight terrorism and promote 
regional stability, (2) expanding bilateral trade and 
investment, and (3) working with Algerian counterparts as they 
pursue political and economic reforms that will foster 
stability as Algeria navigates new economic realities.
    The U.S.-Algeria relationship has grown broader and deeper 
in recent years. Algeria's Foreign Minister visited Secretary 
Tillerson in Washington this May. In the last several years we 
have consulted extensively, at high levels and with broad 
interagency participation, regarding terrorism in North Africa. 
Our governments also hold bilateral Strategic Dialogues and 
Joint Military Dialogues on a recurring basis. Our Embassy in 
Algeria also facilitates a broad and ever-growing spectrum of 
bilateral cooperative programs that strengthen our security, 
economic, governance, educational and cultural ties. This 
speaks to the value that both of our countries place on our 
growing partnership.
    From Algeria's fight against terrorism in the 1990s, it has 
achieved a hard-won stability, which it has maintained through 
rigorous counterterrorism efforts, national reconciliation 
programs, and de-radicalization initiatives. Algeria has also 
exported this peace dividend to its neighbors. I am 
consistently impressed by Algeria's efforts to foster political 
reconciliation in Libya and to align neighboring states in 
support of a political agreement. Algeria has also provided 
security assistance and training to other neighbors such as 
Tunisia and Niger.
    As the largest country in Africa and situated in a volatile 
neighborhood, Algeria clearly recognizes the threat that 
regional unrest poses to its domestic security. Fighters from 
Iraq and Syria returning to the region, smuggling networks, and 
organized criminal groups represent significant threats. Left 
unchecked, these threats have the potential to harm vital U.S. 
interests. For this reason, if confirmed by the Senate, I will 
work to expand our important bilateral security and 
counterterrorism relationship.
    The U.S.-Algeria relationship is also growing in the 
economic and commercial spheres. The government has faced 
budgetary difficulties following the decline in global oil 
prices, as hydrocarbons account for most of its revenue. Yet, 
these challenges have given Algeria an opportunity to make 
important structural economic changes, promote private sector 
growth, as well as foreign investment. Last year, Algeria 
launched a new economic model to develop and diversify its 
domestic industries. It has also reevaluated state subsidy 
programs and explored new forms of financing.
    The U.S. Government has supported Algeria's economic 
transition. In January, the Treasury Department sent a 
technical advisor to Algeria to provide advice on efficient 
debt management and domestic debt market development. In April, 
our governments held the latest annual meeting of the Trade and 
Investment Framework Agreement Council, to identify ways to 
strengthen economic ties by reducing barriers to trade and 
investment. Additionally, our Embassy in Algiers supports U.S. 
firms in Algeria through commercial advocacy. In April, GE 
Power signed a services deal with Algerian utility Sonelgaz, 
valued at $3.3 billion, to provide upgrades and long-term 
services for 10 gas plants throughout the country. Many other 
companies have also benefitted from U.S. Government advocacy, 
and, if confirmed, I will continue to prioritize this 
critically important function of our Embassy.
    While new investments are essential, Algeria also remains 
one of the key regional producers of oil and gas, and it 
provides an essential energy lifeline to Europe and the Middle 
East. It ranks 10th in world gas reserves and 16th in oil 
reserves. As the United States has considerable expertise in 
the energy industry, if confirmed, I will promote U.S. 
companies as they seek to partner with Algerian firms to 
develop the energy sector.
    Last year, the Algerian Government adopted a package of 
constitutional reforms to strengthen Algeria's political system 
and enshrine freedom of religion. If confirmed, I will work 
with the Algerian government to solidify these important 
reforms, which will strengthen Algeria's democratic and social 
fabric. I am committed to continuing our outreach to key human 
rights, civil society and other non-governmental organizations 
in Algeria. I will also prioritize expanding social ties 
through new academic and people-to-people exchanges.
    Thank you, Mr. Chairman, Ranking Member Booker, and members 
of the committee, for giving me the opportunity to address you. 
It is a great honor to have been nominated as Ambassador to 
Algeria. If confirmed, I look forward to the opportunity to 
lead an active, talented mission at U.S. Embassy Algiers, as we 
work with Algeria to advance our shared interests.
    I will be happy to take any questions you might have.


    Senator Flake. Thank you. Thank you all.
    Ambassador Raynor, opposition activists and journalists 
have been jailed by the Ethiopian Government on charges related 
to national security. How will that affect our relationship 
with Ethiopia, and how do you plan to raise those concerns?
    Ambassador Raynor. Thank you, Senator.
    I do think that these are issues that we must raise and, if 
confirmed, I would raise with Ethiopian leadership. And I would 
seek to do so in a way that is thoughtful but forthright and 
that makes reference to good will, shared interests, and 
objectives, Ethiopia's own statements with regard to its own 
intentions to look at political and governance reforms.
    The state of emergency, the constraint of political space 
and rights does not serve Ethiopia's own long-term 
developmental or security interests. It creates space for 
potential violent extremism and it precludes members of their 
society from contributing to the development of their own 
nation. So I would see every opportunity I could to press that 
case, to use the resources at the embassy, including a resident 
legal advisor and a USAID mission who have strong resources and 
expertise to help facilitate community-based dialogue, other 
means of bridging gaps, and helping to move the country past 
this phase where all of its citizens are not being given the 
political space they need to participate in the governance of 
their own country.
    Senator Flake. How do you understand the investment climate 
in Ethiopia now? There is some controversy with the government 
giving away large swaths of land, agricultural land to foreign 
owners, I guess, for electricity production and some other 
things. How does that affect the investment climate?
    Ambassador Raynor. Well, first, I would note that there are 
extraordinary opportunities in Ethiopia. It has had one of the 
fastest growing economies in the world over the past 10 years, 
and I think that creates opportunities for U.S. businesses. And 
the government's own growth and development strategy calls for 
greater private sector engagement.
    You are right. The land use issues were one of the sources 
of tension underlying the recent unrest. I think there is still 
work to be done to resolve those. But there is also work to be 
done to strengthen the broader business climate in the country 
so that it is more welcoming to private investment, private 
sector engagement like the American private sector can bring.
    So I would work with the Ethiopian Government, if 
confirmed, to promote improvements in their business climate 
and to promote U.S. commercial activity both for the sake of 
our own business community and for the sake of Ethiopia's 
development and stability.
    Senator Flake. Thank you so much.
    Ms. Brewer, Sierra Leone was caught up with the Ebola virus 
and devastating effects there. As bad as it was, it could have 
been worse had it spread to other countries. It was contained 
at least in West Africa. And there is concern of new outbreaks 
at some point. We know it never goes completely away. And 
public health, certainly having an infrastructure there to 
contend with a new epidemic that might come there and in other 
countries is important.
    What is the situation with regard to public health in 
Sierra Leone, and what is the United States doing to improve 
that?
    Ms. Brewer. Yes, thank you, Senator.
    Yes, the Ebola crisis was a terrible loss for the country. 
Some 14,000 Sierra Leoneans were infected and almost 4,000 died 
during the crisis. So we know that the country is very 
cognizant of the dangers, as well as to the international 
community.
    The U.S. Government has done quite a bit through USAID and 
other partners, including DOD. It was truly a whole-of-
government approach that was used to stem the tide of this 
horrible scourge.
    Since then, we have been working with post-recovery 
efforts, including expanding the global health security agenda. 
We are sampling animals to ensure that we know what kinds of 
diseases can be spread animal to human, both wild and 
domesticated. We have just rehabilitated 300 clinics which will 
serve some 1.7 million Sierra Leoneans to give them some basic 
health treatment as well. So we are working very closely with 
our international partners, as well as with the Sierra Leonean 
Government, and we will continue to encourage them to put more 
of their own national assets and resources towards health care 
as well.
    Senator Flake. Thank you.
    Mr. Desrocher, we talked in my office about some of the 
challenges facing Algeria. Low oil prices have, obviously, 
affected their revenues. What efforts are being made to 
diversify that economy? And how is the U.S. helping in that 
regard?
    Mr. Desrocher. Thank you, Senator, for the question.
    You are right. Low oil prices have had an impact on 
Algeria's economy. It is traditionally an oil-dependent 
economy, but the government is looking to diversify that 
economy. It is very interested in foreign direct investment. 
That is something we are obviously interested in as well. A 
diverse economy is a more robust economy. That is certainly 
good for Algeria. It is also good for countries like us that 
want to work with Algeria.
    We want to help with those reforms as Algeria moves forward 
with its own reform program. We have a Treasury Department 
technical advisor in Algiers working on issues like private 
debt management, and we are willing to look at how we might 
expand the way we cooperate with the Algerian Government in 
this economic reform area because we really think it would 
benefit both our countries. If confirmed, that is something I 
will certainly strongly encourage.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. If it is all right with you, Mr. Chairman, 
I am going to defer to Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thank you for 
that, Senator Booker.
    And congratulations to each of you. I am not on the Africa 
Subcommittee of FRC, but I am on the subcommittee that overseas 
Arab North Africa. I call it the subcommittee from Marrakech to 
Bangladesh. And so, Mr. Desrocher, my questions are going to be 
for you. But for all of you, congratulations both on your 
lengthy careers of service but also on these important 
nominations.
    You referred in your opening testimony to new economic 
realities from Algeria without description. I assume you were 
referring primarily to low oil prices and how that has affected 
the country. And you responded a bit to the chair on that 
question.
    But what are some other areas that you think the U.S. can 
be particularly helpful? Are there private investment 
opportunities, industries in the United States that might find 
promising opportunities in Algeria? What can we do to help them 
deal with that challenge?
    Mr. Desrocher. Thank you, Senator, for the question.
    I think there is a great deal that the United States can do 
to work with Algeria as it seeks to reform and diversify its 
economy. Obviously, American firms bring a great deal of 
expertise and technology across all sectors, and Algeria could 
really benefit from that. Algeria is anxious for foreign direct 
investment, and I think we can work with the Algerians to help 
build an environment that is more welcoming to foreign direct 
investment.
    I mentioned the Treasury technical advisor that is there. 
That is something that we certainly think--he has only been 
there a short time, but it is already showing some fruit. I 
have worked in other countries where we have had programs from 
various parts of the U.S. Government that help countries that 
are looking to examine their domestic investment environment 
and look at ways to make it more attractive for private 
investment. And that is certainly something that I would 
address with my Algerian counterparts, if confirmed, and be 
very ready to look for ways to move forward on.
    Senator Kaine. Thank you for that.
    Share a little bit about your thoughts on how Algeria is 
dealing with anti-terrorism efforts. There was a Reuters report 
this morning that they had just broken up an ISIS cell that was 
headed by a former al Qaeda operative. And so there is this 
mixture of al Qaeda and ISIS elements in Algeria. It sounds 
like a good bit of investigative and intel work to break up the 
cell. But talk a little bit about the challenge they face and 
how they are dealing with it.
    Mr. Desrocher. Certainly, Senator. Thank you for the 
question.
    Algeria has a great deal of experience in this area, and it 
has proven itself to be an effective counterterrorism partner 
for the United States. It does have some terrorism presence in 
the country, as you mentioned, but it has been effective at 
constraining that.
    We work closely with the Algerians on counterterrorism and 
security issues. We have a number of assistance programs, not 
very large particularly, but we have a number of assistance 
programs that help with managing terrorist incidents, with 
forensics, with investigations, airport security, and issues 
like that. Certainly, if confirmed, that is something I would 
want to encourage because we have found thus far the Algerians 
to be a very willing and very effective counterterrorism 
partner.
    Senator Kaine. We have a very strong ally next door to 
Algeria in Morocco. The relations between Morocco and Algeria 
have been very, very challenged over many years. There is a 
whole series of issues, including the Western Sahara.
    Do you see any prospects based on your expertise and work 
in the area? Do you see any prospects for change in the 
Algeria-Morocco relationship so that there would be a cessation 
of challenges and stronger bilateral ties?
    Mr. Desrocher. Thank you, Senator.
    You are right. The Algeria-Morocco relationship has 
certainly been a tense one for some time. It is something that 
we think is in the interest of both countries to try to find 
ways to work better together. If confirmed, that is something 
that I would certainly work on. There are definitely areas of 
cooperation in border security and drug smuggling and other 
issues, counterterrorism where the ability for those two 
countries to work together would really benefit them both and 
the wider region. And it is certainly something I would very 
eagerly work on.
    Senator Kaine. Great.
    Thank you, Mr. Chair.
    And I appreciate your answers to those questions.
    Senator Flake. Thank you.
    Senator Young?
    Senator Young. Thank you, Chairman.
    Ms. Brewer, I first want to congratulate you so much on 
your nomination to serve as the U.S. Ambassador to the Republic 
of Sierra Leone. I am glad that your family, who I met earlier, 
could be here with you. Your husband Mark and your daughter 
Arina, a cute little 8-year-old right there--I am glad they are 
here as well.
    So as many of you know, Ms. Brewer is a career member of 
the senior Foreign Service. She served as Deputy Chief of 
Mission at our embassy in Nigeria. She also served in important 
positions at our embassy in Pakistan and Sri Lanka, as well as 
our consulate in Mumbai, India. You have valuable experience, 
Ms. Brewer, related to the Ebola crisis, as well as the Boko 
Haram and al Qaeda threats.
    But most importantly to me, Ms. Brewer was born in Indiana 
and you earned your degree at Valparaiso University. Based on 
your status as a Hoosier and a tremendously qualified career 
member of the senior Foreign Service, I look forward to 
supporting your nomination and supporting your important work 
in Sierra Leone, once you are confirmed.
    So, Ms. Brewer, I just want to touch on something in your 
prepared statement. You mentioned a number of development-
related issues that will be important to the future of Sierra 
Leone, including good governance, rule of law, democratic 
institutions, economic sustainability, and anti-corruption 
measures. Which of these do you believe will be particularly 
important to the future of Sierra Leone and U.S. interests 
there?
    Ms. Brewer. Thank you, Senator, for those remarks. And 
thank you for your acknowledgement of my status as a Hoosier. 
My husband and I are both proud Hoosiers. So it is really an 
honor for a girl from Portage, Indiana to eventually go and 
represent our country all over the world. It has been amazing. 
So thank you for that.
    Regarding the various issues that face Sierra Leone, there 
are many and they have many deep challenges. I think one of the 
issues that I would like to focus on during my tenure, if 
confirmed, would be to help them create the economic and 
business climate where they can attract the business that they 
will need to truly advance. That includes issues of corruption. 
It includes issues of rule of law. Businesses need to know that 
when they go to have a contract to have a business, that the 
terms of that contract will be honored, that they will not be 
endlessly asked for a number of fees, other issues like that 
that will make it harder for them to attract the kind of 
business that they need.
    Recently the embassy stood up an American business 
community to help U.S. entities doing business in Sierra Leone 
bring their issues forward to the government and help amplify 
those voices. But I think creating an environment that includes 
the respect for rule of law and respect for contracts and 
strong judicial bodies will help Sierra Leone advance the most 
quickly.
    Senator Young. Well, I am encouraged by that response. And 
increasingly our own country's development assistance programs, 
as you know better than I, are focused on helping countries 
graduate out of receiving development assistance. I know there 
are a number of opportunities in Sierra Leone to grow their 
economy amidst all the challenges that they face in that 
regard.
    One of the things I think is really important from our 
standpoint is to make sure that we optimize our development 
enterprise. This is something I have been involved with with 
Senator Shaheen forming a bipartisan panel with CSIS, the think 
tank, and we have produced a report about how we can reform our 
development enterprise to support efforts like yours in Sierra 
Leone. So I would commend that to you, recommend you take a 
look at the website and download the report. And I think a 
number of those recommendations will be incorporated in the 
forthcoming reforms we will see at USAID.
    So thanks again to all of you for your interest in serving 
and for your service to date.
    I yield back the balance of my time.
    Senator Flake. Thank you.
    I am told that we have a hard stop at 11:30 for this, but 
we will try to get through as quickly as possible.
    Senator Booker?
    Senator Booker. Senator Coons, please go ahead.
    Senator Coons. Thanks, Senator Booker. I will be quite 
brief. Just two quick questions, if I might, to Mr. Raynor for 
your upcoming service, if successful, in Ethiopia.
    Just talk to me briefly, if you would, about how you 
understand China's role in Ethiopia. I have some concerns about 
adoption and ongoing challenges that Delaware families and many 
others have in concluding adoption cases that had been open. 
And I would be interested if you could speak to those two 
topics just briefly.
    Ambassador Raynor. Thank you very much, Senator.
    China is certainly very active in Ethiopia, has identified 
Ethiopia as a preferred partner in Africa. I think that is most 
visible in infrastructure projects, work on the airport, work 
on the railroad connecting Addis to Djibouti, and in many other 
areas as well. It is an interesting dynamic. It is something 
that I think the U.S. Government needs to be cognizant of. And 
yet, I think that there is value in multiple donors and 
multiple points of engagement with a country like Ethiopia that 
has enormous potential. And I think it is incumbent on us to 
look at how we engage in ways that complement with other 
donors, including China. But I think it is clear that there is 
a strong and deep relationship between Ethiopia and China.
    On adoption, that is of paramount concern to me, Senator. 
There are about 300 American families currently in the process 
of trying to adopt and have invested emotionally, time, 
resources, formed real connections with real children who are 
desperate for that connection and for the resources that they 
can gain from being adopted by loving American families.
    The Ethiopian Government did suspend international 
adoptions in late April. The embassy immediately began engaging 
to resume those, receiving quite thoughtful and helpful 
engagement from the Ethiopian authorities to resume 
international adoptions. The 40 or so that had gone through the 
judicial process I understand have all gone through the entire 
process at this point, including the final documentation. About 
250 other families are farther back in the pipeline. The 
government has engaged to continue processing those as well.
    One of the challenges is that some of the early steps in 
the process take place at the regional level, and there is some 
variation in how the various regions are doing that.
    So, if confirmed, I would continue to engage constructively 
with Ethiopia and to welcome their constructive engagement to 
see these cases through, but also to engage on the regional 
level to make sure that we are getting appropriate cooperation.
    Senator Coons. Thank you, Mr. Raynor. Given the press of 
time, I will defer to the ranking member. Let me just in quick 
closing say McKinsey has recently issued a report about China's 
ascendancy across the continent, a trend that has been underway 
for a decade. I urge all of you to be active in promoting 
American exports and engagement with the continent. Thank you.
    Thank you for the chance to question, Senator.
    Senator Flake. Senator Booker?
    Senator Booker. I have got about 3 minutes before they 
actually literally stop the cameras because of some wonderful 
non-bipartisanship in our Senate.
    So, first of all, Ms. Brewer, I am very concerned about 
human trafficking concerns. Is there anything you can enlighten 
me as to how much of a focus that will be for you?
    Ms. Brewer. Certainly. Thank you, sir.
    I know that the U.S. Government has been engaging with the 
Government of Sierra Leone for several years on this issue, and 
in fact, we have been supporting through our Trafficking in 
Persons Office in the State Department--we have been supporting 
a women's shelter there for victims of trafficking. It is also 
heartening. I have learned that the government has laws against 
such acts. However, it has been some years since anyone has 
been prosecuted and jailed under these provisions of the 
criminal code. So that is something that I know that I will 
continue, if confirmed. I would continue to press for actual 
action and convictions against traffickers.
    Senator Booker. I appreciate that, and anything you can 
highlight for us as a legislative body that we could be doing 
more on that issue and especially to help with Sierra Leone.
    There were programs I was reading about in preparation for 
this about the Young Africa Leaders Initiative that Obama 
talked a lot about and funded very well. Do you have concerns 
about that not being funded in this next administration?
    Ms. Brewer. I do not have specific information about what 
would or would not. I understand those conversations are still 
going on in terms of what the funding levels will finally be to 
the Department of State. So, of course, whatever the funding 
levels are, I will seek to be a good steward of U.S. taxpayer 
resources, to maximize them.
    Sierra Leone, while a small country, has been able to 
benefit greatly from these programs, sending about a dozen 
young people to the U.S. for these training programs over the 
last several years every year in each program, both the YALI 
and the Mandela fellowship. So I think we really are maximizing 
our relationship as much as we can.
    Peace Corps also has recently been reestablished. And over 
the years, there have been nearly 4,000 Peace Corps volunteers 
that have deployed to Sierra Leone, many of whom are back here 
in the U.S. and continue to keep Sierra Leone in their hearts.
    So we have many avenues of engagement and YALI is a strong 
one, but I look forward to, if confirmed, continuing to 
maximize all of those.
    Senator Booker. Great.
    Mr. Raynor, really quickly, we just were hearing in our 
previous hearing, as you probably did, about the challenges 
between Ethiopia and Egypt, the conflict over the dam, as well 
as how that is playing out and the conflict that we are having 
in South Sudan. In the 120 seconds I have left, could you take 
up a third of that or two-thirds of that and give me a short 
answer?
    Ambassador Raynor. Sure. Thank you, Senator.
    I think the main issue being about the water rights and the 
dam. At the moment, it is incumbent on all countries to share 
the waters of the Nile, to work collaboratively on how that 
water gets used. I would, if confirmed, encourage Ethiopia to 
continue its consultative process in that regard and the launch 
of the Grand Ethiopian Renaissance Dam in a manner that takes 
into account the interests of all those who share the water.
    More generally, I think these are two very powerful and 
influential countries in the region, and everything they can do 
to communicate clearly and collegially with each other is in 
the interest of the regional stability and our own interests as 
well. So I would take every opportunity to encourage them to 
continue to be constructively forthright in their engagement 
with each other.
    Senator Booker. Thank you very much. I am going to cut you 
off before the cameras cut off. I do not have time to ask you 
about Russian influence in Algeria, but maybe we can do that 
offline. And I am going to turn it over to the chairman to 
close us out.
    Senator Flake. Thank you so much for your testimony. Thank 
you for your willingness to serve. We are always well served by 
our career diplomats.
    This hearing is so short that Senator Coons did not even 
have to talk about chicken exports to Africa. [Laughter.]
    Senator Flake. But anyway, with the thanks of the 
committee, we look forward to the business meeting.
    This hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
          to Hon. Michael Raynor by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have sought to contribute meaningfully to the promotion 
of human rights and democracy throughout my career. As Assistant Chief 
of Mission in Afghanistan, I directed U.S. Agency for International 
Development (USAID) and State International Narcotics and Law 
Enforcement (INL) programs that increased girls' enrollment in primary 
and secondary schools, improved access to basic health services, and 
increased women's enrollment in public universities. I worked closely 
with USAID to launch the ``Promote'' program to strengthen Afghan 
women's participation in civil society, the economy, and decision-
making positions within the Afghan Government. Also in Kabul, I helped 
resolve missteps by Afghan partners that threatened to curtail U.S. 
Government capacity-building in justice and corrections, ensuring 
continued U.S. engagement to improve Afghan rule of law and prison 
conditions. I worked closely with Afghan counterparts to bolster their 
commitment to democracy, chairing the U.S.-Afghanistan Bilateral 
Commission working group on democracy and governance that elicited 
strong Afghan commitments to strengthening democratic institutions and 
practices.
    As Chief of Mission in Benin, my close rapport with the then-
President enabled me to counter negative tendencies that threatened 
media crackdowns, divisive constitutional amendments, and other 
potentially anti-democratic actions. I helped strengthen Benin's 
respect for human rights, with a particular focus on gender equality. I 
elicited greater Beninese commitments and resources to combat 
trafficking in persons, launched USAID and Peace Corps projects to 
counter violence against women, and supported greater female access to 
education, health care, and business opportunities. I beefed up U.S. 
engagement to improve Beninese labor conditions, to resettle the last 
refugees in Benin, to tackle HIV/AIDS along transportation routes, and 
to support disability rights. I strengthened U.S. interagency 
engagement in Benin to professionalize the country's judiciary by 
enhancing its responsiveness and transparency and countering judicial 
corruption. I provided strong support to Benin's traditions of 
religious tolerance and peaceful co-existence, while developing an 
innovative interagency program to prevent violent extremism in the face 
of extremist threats immediately across Benin's borders.
    As Zimbabwe desk officer during the height of Zimbabwe's economic, 
political, and humanitarian crisis, I helped preserve Economic Support 
Funding for Zimbabwe's civil society and worked to ensure that U.S. 
sanctions focused on the corrupt Zimbabwean elite without worsening the 
hardships of average Zimbabweans. This included fostering a compromise 
to allow a pilot U.S. feeding program for Zimbabweans who had been 
excluded from assistance because they had been resettled onto 
commercial farmland seized by the Zimbabwean Government.

    Question 2. What are the most pressing human rights issues in the 
Federal Democratic Republic of Ethiopia? What are the most important 
steps you expect to take--if confirmed--to promote human rights and 
democracy in the Federal Democratic Republic of Ethiopia? What do you 
hope to accomplish through these actions?

    Answer. In the past year, the most significant challenges to human 
rights and democracy in Ethiopia included excessive use of force by 
state authorities to silence dissent, arbitrary arrests, politically 
motivated prosecutions, and continued restrictions on free speech, 
assembly and other activities of civil society and non-governmental 
organizations. If confirmed, I will work with the Ethiopian people and 
government to open political space, to advocate for full implementation 
of the Ethiopians' constitutionally-guaranteed rights, political 
freedoms, civil liberties and due process, and to promote reforms that 
strengthen democratic institutions. I will make the case that adhering 
to its own constitutionally guaranteed rights and basic freedoms will 
enhance Ethiopia's stability and further support its sustainable 
development goals and ability to act as a bulwark against the spread of 
violent extremism in the region. I will also argue that an empowered 
civil society can and would be an important ally for a government that 
prides itself on good governance. My goal will be to convince the 
Ethiopian Government that forward progress in democratic development 
serves its own interests as well as the interests of the Ethiopian 
people.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Federal 
Democratic Republic of Ethiopia in advancing human rights, civil 
society and democracy in general?

    Answer. The main obstacles to achieving progress on these areas are 
laws and policies that run counter to the Ethiopian Government's stated 
goals of political reform and democratic development, and that in some 
cases violate constitutionally protected rights. In particular, I am 
concerned by the continued use of the Anti-Terrorism Proclamation, and 
more recently the state of emergency, to silence journalists, 
activists, and opposition voices. Also, the 2009 Charities and 
Societies Proclamation ("CSO law") has placed restrictions on funding 
for non-governmental organizations, which makes it extremely difficult 
for well-intentioned Ethiopians to sustainably operate civil society 
organizations, thereby undercutting their ability to channel popular 
grievances into proposals for policy solutions. If confirmed, I plan to 
engage in frank discussions with Ethiopian officials about how long-
term stability comes through the protection of human rights and 
democratic governance.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Federal Democratic Republic of Ethiopia? 
If confirmed, what steps will you take to pro-actively support the 
Leahy Law and similar efforts, and ensure that provisions of U.S. 
security assistance and security cooperation activities reinforce human 
rights?

    Answer. Yes, if confirmed as Ambassador, I will meet with human 
rights, civil society and other non-governmental organizations. I will 
encourage the Ethiopian Government to seek input from a broad range of 
viewpoints, including civil society. I will also advocate for the 
protection and defense of human rights.
    If confirmed, I will make certain the Embassy continues to 
rigorously implement Leahy vetting to ensure that U.S. security 
assistance and security cooperation activities, including pre-
deployment training to Ethiopian peacekeepers in Somalia and South 
Sudan under the Africa Contingency Operations Training and Assistance 
program, require specific human rights training to reduce the risk of 
human rights abuses in peacekeeping operations in which Ethiopia 
participates. I will do the same for rule of law programs with the 
police. I will be vigilant to ensure that our security cooperation is 
never misused to restrict the rights of the Ethiopian people.

    Question 5. Will you and your embassy team actively engage with the 
Federal Democratic Republic of Ethiopia to address cases of key 
political prisoners or persons otherwise unjustly targeted by Ethiopia?

    Answer. If confirmed, my team and I will work hard to ensure that 
the rule of law is respected in Ethiopia, including the Ethiopian 
Constitution, which not only guarantees basic human rights but also 
enshrines a wide range of other rights. I have very real concerns 
regarding reports that there are a number of cases where these rights 
are infringed by violations of due process and political interference, 
including with regard to members of the political opposition. It is 
important to urge the government to follow due process for trial 
proceedings, to refrain from appealing acquittals pronounced by 
Ethiopian courts, and to protect the rights of anyone who is accused of 
committing a crime.
    If confirmed as Ambassador, I will continue to advocate for the 
respect of fundamental human rights to include the freedom of speech 
and peaceful assembly, and advocate for persons unjustly detained by 
the Government.

    Question 6. Will you engage with the Federal Democratic Republic of 
Ethiopia on matters of human rights, civil rights and governance as 
part of your bilateral mission?

    Answer. If confirmed, I would consider human rights and democracy 
advocacy to be a fundamental part of my job and will engage with the 
Ethiopian Government. I will make support for human rights, civil 
rights, and good governance key elements of my engagement with the 
Ethiopian Government across the full range of issues. Ethiopia stands 
to benefit greatly in all areas when its people are empowered, 
informed, and have trust in the rule of law.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?
    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Federal Democratic Republic of Ethiopia?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a management-coned Foreign Service officer who has 
managed diverse teams throughout my career, I am a strong believer in 
the value of diversity in the workplace and have sought to create 
supportive and inclusive workplaces in each of my assignments. In my 
current capacity as Director of the State Department's Office of Career 
Development and Counseling, I oversee the Department's Continuity 
Counseling operation, which exists to support and promote the success 
of underrepresented groups in the Foreign Service. If confirmed, I will 
ensure that the U.S. Embassy in Addis Ababa has active and accessible 
Equal Opportunity (EEO) and Federal Women's Program (FWP) operations, 
programs, and outreach, and I will ensure that EEO and FWPC counselors 
at the Embassy are properly trained and afforded sufficient time in the 
workplace to perform these important functions. I will ensure that the 
Embassy has formal, structured mentorship programs and will be 
attentive to ensuring that each member of the Embassy team has every 
chance for personal growth and professional success. In my own 
behavior, I will model a strong commitment to diversity and inclusion. 
I will ensure that the employee evaluation process is rigorously 
followed, including formal and documented counseling sessions 
throughout each performance period, so that employees receive timely 
and constructive feedback on their performance and have structured 
opportunities to raise with their supervisors any workplace concerns or 
impediments to success.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. I will speak publicly and regularly, including in Town Hall 
and Country Team meetings, about my own commitment to diversity and 
inclusion and my expectations that all members of the Embassy team will 
experience and sustain an inclusive and supportive workplace. I will 
require all supervisors to promote an inclusive, supportive, and 
ethical workplace. I will encourage that the performance evaluations of 
all supervisors comment on the supervisor's success in valuing 
diversity and promoting inclusion, and will recognize and commend 
efforts among supervisors to value diversity and foster inclusion. I 
will ensure that supervisors are cognizant of EEO principles and rules, 
and held accountable for respecting them. I will ensure prompt 
engagement, and corrective action when warranted, on any expressions of 
concern that the Embassy workplace does not value diversity or promote 
inclusion.

    Question 12. The U.S. and Ethiopia began a human rights working 
group to follow up on the commitments the Ethiopian Government made to 
improve in the areas of democracy and human rights as a result of the 
President's visit to Ethiopia in July 2015. Former Assistant Secretary 
of State for Democracy, Human Rights and Labor Tom Malinowski traveled 
to Ethiopia several during the remainder of the Obama administration to 
participate in the working group, and met with both the Prime Minister 
and other high ranking officials to discuss U.S. concerns, and proposed 
setting up a civil society fund for Ethiopia which is exempt from the 
10 percent cap on foreign funding imposed by the 2009 Charities and 
Societies Proclamation.

   What is the status of the working group? When was the last meeting? 
        Who is currently participating on behalf of the United States?
   What is the status of the proposal to set up a civil society fund? 
        How much has the United States contributed and what 
        organizations are being funded?
   If confirmed, what will you do as Ambassador to secure agreement to 
        the advance the aforementioned initiatives?

    Answer. The U.S. Government and the Government of Ethiopia (GOE) 
maintain a bilateral Democracy, Governance, and Human Rights Working 
Group, which most recently met on December 15, 2016. Then-Assistant 
Secretary Malinowski, Charge d'Affaires Peter man, and Ethiopian 
Foreign Minister Workneh Gebeyehu were the co-Chairs of those 
discussions. Typically these working group meetings are held annually. 
If confirmed as Ambassador, I will continue to hold these meetings as 
they provide a proven platform in which both sides can speak candidly.
    It is my understanding that the Embassy consistently advocates for 
more open and inclusive political and civil space in Ethiopia, 
including a loosening of restrictions on civil society and greater 
tolerance for opposition views. Our Embassy has consistently engaged in 
this space through a variety of mechanisms. My understanding is that 
the Government of Ethiopia has our proposal on the Civil Society Fund 
but has yet to provide an answer. If confirmed as Ambassador, I will 
make the case that adhering to its own constitutionally guaranteed 
rights and basic freedoms will enhance Ethiopia's stability and further 
support its sustainable development goals. I will assert that this 
adherence will serve to strengthen the Government of Ethiopia's ability 
to act as a bulwark against the spread of violent extremism in the 
region. I will also argue that an empowered civil society can and would 
be an important ally for a government that prides itself on good 
governance. My goal will be to convince the Ethiopian Government that 
forward progress in democratic development serves its own interests as 
well as the interests of the Ethiopian people. To achieve this, I will 
leverage the tools available through USAID and State to continue to 
advocate for space for NGOs to operate freely as a feature of any 
democratic and law-based society.

    Question 13. The United Nations Commissioner for Human Rights, who 
visited in May, was reportedly denied access to the Oromia and Amhara 
regions the locations of widespread popular protests in 2015 and 2016 
that resulted in hundreds dead and tens of thousands detained.

   Has the Government of Ethiopia granted the High Commissioner or 
        U.N. Special Rapporteur on freedom of peaceful assembly and of 
        association access to Oromia or Amhara? What concrete steps can 
        you take, if confirmed, to encourage the Government of Ethiopia 
        to provide such access?
   Will you commit to ensuring that you and your embassy staff attempt 
        to regularly visit if you are confirmed?

    Answer. The High Commissioner Zeid Ra'ad Al Hussein traveled to 
Ethiopia in May but did not get to Oromia or Amhara. During his three 
day visit, by his own account he met with government officials, spoke 
to the press, and advocated for greater and freer civic space. He 
appealed to the Government of Ethiopia to grant U.N. human rights 
officials access to areas that experienced unrest. He also expressed 
interest in returning to Ethiopia in 2018. If confirmed as Ambassador, 
I will speak frankly and openly with the Government of Ethiopia about 
the value of hosting visits by the U.N. bodies. The Embassy staff in 
Addis Ababa maintains a robust and active tradition of traveling 
throughout the country as part of our on-going outreach and engagement 
with the people of Ethiopia. If confirmed as Ambassador, I will 
continue to uphold this tradition including in Oromia and Amhara 
regions.

    Question 14. When is the last time the State Department conducted a 
review of security assistance to Ethiopia? If none has been conducted 
when will one be? If one has been conducted, when will that review be 
shared with Congress?

    Answer. The Departments of State and Defense regularly conduct a 
review of security assistance to all recipient countries. This is also 
the case for Ethiopia. The Departments of State and Defense conducted a 
review of security assistance to Ethiopia in the fall of 2016. The 
review was completed earlier this year. These exercises form the basis 
for future decision-making and provide useful context. It is my 
understanding that the Department can provide a classified briefing 
regarding the current security assistance to Ethiopia. If confirmed as 
Ambassador, I will be a steward of our assistance programs and fully 
comply with our standards and regulations.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Maria E. Brewer by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, I have sought to support human 
rights, strengthen the rights of women, and reinforce principles of 
democracy. When I served as the Deputy Chief of Mission in Nigeria from 
2013-2016, we pressed for peaceful, transparent, and democratic 
national elections in 2015. We did so in numerous ways, from supporting 
the work of Nigeria's Independent National Election Commission (INEC) 
with technical advice and providing independent election observers, to 
working with the major parties to reinforce the need for the parties to 
cooperate with INEC, to reinforcing on a daily basis the message of 
violence-free elections, including the potential of personal sanctions 
against anyone who would foment violence. In the end, Nigeria 
experienced a peaceful transition of power from the ruling party to the 
former opposition party, a first in its history as a democratic nation.
    At the same time, my staff and I at the U.S. Embassy in Nigeria 
ensured that we scrupulously carried out Leahy vetting to ensure that 
our support to military and law enforcement bodies only reached those 
with a clean human rights record. We pressed the Nigerian Government to 
strengthen its broader human rights record, reinforcing that respect 
for human rights would support its armed forces in its fight against 
Boko Haram. We noted that security is a multidisciplinary endeavor, 
requiring coordinated engagement by all aspects of federal, state, and 
local governments, as well as civil society. We addressed issues of 
accountability, stating that the United States remains ready to support 
Nigeria and its security services as the country fulfills its 
responsibilities with restraint and impartiality.
    When Boko Haram carried out the horrific kidnapping of 276 young 
women from a secondary school in the town of Chibok, the worldwide 
public outcry included a major social media movement, 
#BringBackOurGirls. I coordinated and focused the efforts of multiple 
U.S. agencies addressing the crisis. We brought in an interagency team 
of experts representing a wide variety of skill sets. I ensured that 
U.S. efforts were closely coordinated, internally and with Nigerian and 
international partners. We focused on both the immediate crisis and on 
finding longer-term solutions to the underlying causes. I coordinated 
activities, reviewed policy imperatives, and leveraged resources to 
maximum effect. Working as one team, our military, intelligence, 
humanitarian, strategic communications, and law enforcement 
representatives shared information and created strategies. I was 
honored to lead a complex interagency U.S. Government response to a 
crisis with significant political, security, and public diplomacy 
dimensions. While not all of the girls have been returned to their 
families, our work supported survivors as they were rescued, made their 
way to safety, or were released through negotiation.
    During my tenure, Nigeria passed comprehensive Anti-Trafficking in 
Persons legislation in 2015. In 2014, we successfully nominated 
Beatrice Jedy-Agba, Executive Secretary of the National Agency for the 
Prohibition of Trafficking in Persons (NAPTIP), to receive recognition 
as a ``TIP Report Hero Acting to End Modern Slavery,'' thanks to her 
efforts to fight human trafficking. Additionally, I spoke out against 
violence against women and children, including during my annual 
participation in the International Day for the Elimination of Violence 
against Women and the ensuing 16 Days of Activism against Gender 
Violence.
    Throughout my career, as a Management Officer entrusted with the 
responsibility of overseeing our Human Resources operations in both 
domestic and overseas environments, I reinforced the need for 
scrupulous adherence to U.S. and local labor laws, including support 
for Equal Employment Opportunity principles.

    Question 2. What are the most pressing human rights issues in 
Sierra Leone? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Sierra Leone? What 
do you hope to accomplish through these actions?

    Answer. As a member of the U.N. Human Rights Council, Sierra Leone 
has a strong record of voting with the United States, including on 
contentious country-specific resolutions. Nonetheless, a number of 
human rights challenges remain. Among the most significant are: abusive 
treatment by police, prolonged detention and imprisonment, harsh prison 
conditions, widespread corruption, lack of access to justice, violence 
against women, culturally-entrenched female genital mutilation, child 
abuse, societal discrimination against LGBTI persons, trafficking in 
persons, and child labor. As noted in the 2016 Human Rights Report, 
constraints on freedom of speech and expression remain. Government 
officials have used the criminal libel provision in the Public Order 
Act of 1965 to harass journalists and members of civil society who have 
expressed views critical of the Government, although no one has been 
convicted under the libel provisions for many years.
    If confirmed, I will continue to emphasize to the Sierra Leone 
Government the importance of holding free, fair, and peaceful elections 
in March 2018. I would reinforce the importance of freedom of 
expression as a fundamental freedom for a democratic society in my 
dialogue with the Government, politicians, and press contacts. The 
embassy has strongly advocated for free, fair, timely, and peaceful 
elections. If confirmed, I would do the same.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Sierra Leone in 
advancing human rights, civil society and democracy in general?

    Answer. Extreme poverty in Sierra Leone has impacted all aspects of 
society. Lack of technical capacity and resources have created an 
environment in which corruption has taken root, reducing the Sierra 
Leone Government's ability to address many of the country's problems.
    Nevertheless, the Government of Sierra Leone has made efforts to 
address such issues. President Koroma declared his support for human 
rights. The U.S. Government is supporting the Government of Sierra 
Leone to professionalize security forces, combat human trafficking, 
improve judicial processes, address official impunity and corruption, 
empower women, and protect the human rights of marginalized groups 
including disabled individuals and individuals in the LGBT community. 
Since 2009, the U.S. Government has provided $1.7 million to help 
operationalize Sierra Leone's Transnational Organized Crime Unit 
through specialized training, mentorship, and provision of equipment. 
Additionally, the Embassy has provided oversight to the ``Promoting 
Transparency in Sierra Leone's Judiciary'' project, which has drafted 
modern bail and sentencing guidelines to combat corruption, promote 
transparency, and greater credibility in the judiciary and law 
enforcement, and alleviate prison overcrowding. The Embassy is also 
implementing a $1.1 million ``From Prisons to Corrections'' project to 
help Sierra Leone's Corrections Services antiquated prison system 
become a modern corrections service that conforms to international 
human rights standards.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Sierra Leone? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed as Ambassador, I will meet with human rights, 
civil society, and other non-governmental organizations. I will 
encourage the Sierra Leonean Government to seek input from a broad 
range of viewpoints, including civil society. I will advocate for the 
protection and defense of human rights.
    If confirmed, I will ensure the U.S. Embassy continues to 
rigorously implement Leahy vetting regarding U.S. security assistance, 
security cooperation, and law enforcement activities. The U.S. Embassy, 
with Department of State's Bureau of International Narcotics, and Law 
Enforcement Affairs (INL) funding, is implementing a prison reform 
program to improve prison conditions to meet international human rights 
standards. The ``Promoting Transparency in Sierra Leone's Judiciary'' 
project has produced modern bail and sentencing guidelines to address 
problems relating to prolonged detention, abuses relating to the 
granting of bail, and alleviate prison overcrowding. This, along with 
other programs, will result in strengthening Sierra Leone's justice 
system and corrections service. If confirmed, I will continue to ensure 
that support for any and all security endeavors is made carefully, and 
under strict adherence to the Leahy Law.

    Question 5. Will you and your embassy team actively engage with 
Sierra Leone to address cases of key political prisoners or persons 
otherwise unjustly targeted by Sierra Leone?

    Answer. If confirmed, I will advocate for fair and equal treatment 
for all under Sierra Leonean law. We are sensitive to concerns from 
opposition political parties and civil society groups that some 
political figures have been unjustly targeted and arrested, but as 
noted in the 2016 Human Rights Report, there are no political prisoners 
in Sierra Leone.
    During the upcoming 2018 Sierra Leonean election season, if 
confirmed, I will reiterate the U.S. Government's support for inclusive 
campaigning, and our expectation that Sierra Leonean authorities will 
allow for the free exchange of diverse opinions.

    Question 6. Will you engage with Sierra Leone on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will continue to engage Sierra Leonean 
leadership on matters of human rights and good governance. I will 
encourage credible, free, timely, and peaceful elections in March 2018. 
I will continue to advocate for adherence to international humanitarian 
law. If confirmed, I will engage with the full range of Sierra Leonean 
society regarding the importance of upholding human rights and 
democratic freedoms, to include the right of all registered candidates 
to campaign freely and safely.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Republic of Sierra Leone?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Throughout my Foreign Service career, I have served as a 
mentor to many of my fellow staff, a role that I hold of the utmost 
importance for the development of the next generation of leaders. Most 
recently, as Deputy Chief of Mission to the U.S. Embassy in Nigeria, I 
managed a formal mentoring program that included a wide range of events 
intended to assist first and second tour staff with learning about the 
Foreign Service and enhance their future careers. Such programs are 
extremely valuable, and my intention would be to establish a mentoring 
program at all of my future postings. I also believe in making myself 
available to hear the concerns and answer the questions of all my 
staff, both U.S. and local employees, at all levels.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I believe that senior managers must first themselves be 
model actors that foster inclusivity and respect for diverse 
backgrounds. As a Hispanic female Management coned officer from an 
under-represented part of the country myself, I appreciate the need for 
respecting all kinds of diversity in our work force. As the most senior 
U.S. Government official at the U.S. Embassy in Sierra Leone, I would 
require that all who report to me would demonstrate the same kind of 
respect for each other. I would encourage Embassy staff to remain open 
and willing to learn from each other and from our host nation, modeling 
the best aspects of diplomacy to all.

    Question 12. Sierra Leone's general elections are next slated for 
March 2018. The country's constitution provides for two five-year terms 
limit for the president. President Ernest Bai Koroma and his supporters 
have repeatedly denied he intends to run for a third term. However, 
rumors persist that he intends to do so.

   If confirmed as Ambassador, what will you discourage any possible 
        attempts by Koroma to run for a third term?
   What will you do, if confirmed, to help promote the transition of 
        power through free, fair and on-time elections?

    Answer. While it is the responsibility of the Sierra Leonean 
Government to enforce their laws fairly, Embassy Freetown has advocated 
for free, fair, timely, and peaceful elections every time our diplomats 
have met with the Sierra Leonean leadership, opposition candidates, 
non-governmental actors, journalists, and ordinary citizens. If 
confirmed, I would continue to promote the transition of power through 
free, fair and on-time elections. The embassy has welcomed President 
Koroma's personal assurances that he will not seek a third term and 
that he will not try to change the constitution in order to stay in 
power, and we expect that he will adhere to his promise. If confirmed 
as Ambassador, I will continue to engage, pointing out the importance 
of strengthening respect for the constitution and democracy in 
maintaining peace.

    Question 13. Civil society groups in Sierra Leone are playing 
important roles in promoting good governance and community 
participation in government decision-making. The opposition also plays 
a role in defining the political and social landscape of any country.

   If confirmed, what steps do you intend to take to ensure that there 
        is an appropriate understanding of opposition and civil society 
        viewpoints in developing U.S. diplomatic strategic goals?

    Answer. If confirmed as Ambassador, I would make a priority of 
engaging with the Government and civil society to reinforce personal 
responsibility and accountability in the actions of individuals and 
government officials. The U.S. Government is building on efforts of 
civil society engagement and if confirmed as Ambassador, I will support 
several initiatives to promote more female aspirants to run for 
national, district, and local positions; to assist the media in holding 
issue-based public policy debates; and to provide pre-election monitors 
to keep watch over potential flash points where there is a heightened 
potential for conflicts turning violent in the lead-up to and 
immediately following the elections.

    Question 14. Sierra Leone is a source and destination country for 
men, women, and children subjected to forced labor and sex trafficking. 
Sierra Leone has been designated a Tier 2 country since 2013 in the 
Trafficking in Persons Report published by the State Department. (Prior 
to 2012 it was a Tier 2 Watchlist country.)

   If confirmed, how will you work to ensure that the Government of 
        Sierra Leone takes concrete steps to implement its 2015-2020 
        national action plan to counter trafficking?
   What will you do if confirmed, to direct appropriate USG efforts 
        towards helping Sierra Leone address the recommendations 
        outlined in the report, including, but not limited to, 
        improving prosecutorial and legislative responses to 
        trafficking cases? Is the United States currently funding 
        specific programs and activities aimed at addressing corruption 
        in the Judiciary, or training prosecutors and judges to 
        investigate and prosecute trafficking as recommended in the TIP 
        report?

    Answer. The Government of Sierra Leone does not fully meet the 
minimum standards for the elimination of trafficking; however, it is 
making significant efforts to do so. As such, the U.S. has commended 
the Government's efforts in a resource-scarce environment to identify 
trafficking victims, refer them to services, and fund repatriation for 
25 Sierra Leonean trafficking victims exploited abroad. The U.S. 
Government continues to engage with the Government of Sierra Leone on 
trafficking issues. Since 2013, the U.S. Government has invested $1.2 
million to provide shelter and care to victims of trafficking in 
Freetown. The project is currently focused on building capacity within 
the Sierra Leonean Government to budget for trafficking victim services 
and administer the shelter in the capital. If confirmed as Ambassador, 
I will maintain communication with key stakeholders on human 
trafficking in Sierra Leone, including government officials, NGOs, and 
civil society, to make progress combatting human trafficking and to 
ensure that the Government of Sierra Leone takes concrete steps to 
implement its 2015-2020 national action plan to counter trafficking.
    If confirmed, I would also continue to engage with the Government 
of Sierra Leone on strengthening their state institutions and 
implementing legislation to empower existing entities to establish a 
culture where corruption is not tolerated in the judiciary. Starting in 
June 2012, a U.S. attorney began intermittently mentoring officials in 
the Anti-Corruption Commission (ACC) to impart knowledge and skills to 
prosecute public corruption cases. Since then, the ACC has pursued 
several new cases of corruption. The Embassy has also provided 
oversight to the highly successful $1.5 million Bureau of International 
Narcotics and Law Enforcement-funded Promoting Transparency in Sierra 
Leone's Judiciary project, which has drafted modern state-of-the art 
bail and sentencing guidelines, to combat corruption and promote 
transparency in the judiciary and law enforcement.

    Question 15. More than 15 years after the end of the civil war, and 
despite recent efforts to combat corruption, Sierra Leone continues to 
face governance and corruption challenges.

   What programs and activities is the United States currently engaged 
        in to combat corruption? What more could the U.S. be doing in 
        this area?
   If confirmed, how do you intend to undertake the actions referenced 
        in the previous answer?

    Answer. Despite its successful post-conflict reconstruction efforts 
and three consecutive credible national and local elections, Sierra 
Leone must continue to address serious development challenges. This 
includes entrenched corruption and a culture of impunity. The 
prerequisite for improving the country's human rights situation is 
political stability and a shift in the culture of impunity that 
prevails. The United States and other donor nations engage with the 
Government of Sierra Leone to strengthen its state institutions and 
implement legislation to empower existing entities to establish a 
culture where corruption is not tolerated.
    If confirmed, I would leverage our bilateral relationship and 
assistance to press for enhanced transparency in government, increased 
public awareness of reporting mechanisms for corruption, and robust 
efforts to investigate and prosecute corruption.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to John Desrocher by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, I have endeavored to help counterpart 
governments in the Middle East build effective, responsive institutions 
that value and support the full spectrum of human rights.
    During my work on Iraq in both Baghdad and Washington, I pressed 
the Iraqi Government to adequately protect Mujaheddin e Khalq (MEK) 
members under threat in Iraq. While the MEK did suffer from attacks, 
most MEK members were later safely evacuated from Iraq. While I was 
Deputy Chief of Mission in Baghdad, I had a leading role in the U.S. 
Government response to ISIS attacks on Iraq's Yazidi community after 
the fall of Mosul.
    Supporting Tunisia's democratic transition following its Arab 
Spring revolution was central to my tenure as Deputy Assistant 
Secretary for the Maghreb. U.S. assistance played a critical role in 
helping Tunisia hold its 2014 Presidential and parliamentary elections, 
the first since the revolution. Our support to the elections 
commission, civil society, candidates, and political parties enabled a 
free and fair process. My frequent engagements with civil society 
actors in subsequent visits to Tunisia reinforced U.S. commitment to 
human rights and Tunisia's democratic transition.

    Question 2. What are the most pressing human rights concerns in the 
People's Democratic Republic of Algeria today? What are the most 
important steps you expect to take--if confirmed--to advance human 
rights and democracy in the People's Democratic Republic of Algeria? 
What do you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Algeria include 
restrictions on the freedom of assembly, lack of judicial independence, 
and limitations on civil society, religious freedom, and the media. If 
confirmed, I will prioritize the promotion of human rights in Algeria. 
I will work closely with Algerian leaders to press for progress on this 
important issue. The State Department's annual Human Rights reports 
remain one of our most effective tools in highlighting human rights 
issues around the world. Our report regularly garners press attention 
in Algeria and is studied carefully by NGOs and other groups working on 
human rights issues in Algeria.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the People's 
Democratic Republic of Algeria in advancing human rights, civil society 
and democracy in general?

    Answer. While domestic and foreign NGOs operate openly in Algeria, 
the country's Law on Associations imposes a cumbersome registration 
process and limits on foreign financing. I understand the Government is 
revising the law and, if confirmed, I will encourage the Government to 
take into account the views of civil society as it moves forward with 
the reforms.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the People's Democratic Republic of 
Algeria?

    Answer. If confirmed, I will be committed to continuing my 
predecessors' tradition of meeting with human rights, civil society and 
other non-governmental organizations in the United States and in 
Algeria. Our embassy in Algiers routinely meets with local NGOs to 
learn about alleged human rights abuses and hear their views on how the 
United States can be even more effective in advancing human rights in 
Algeria.

    Question 5. Will you and your embassy team actively engage with 
People's Democratic Republic of Algeria to address cases of key 
political prisoners or persons otherwise unjustly targeted by the 
People's Democratic Republic of Algeria?

    Answer. If confirmed, I stand ready to engage with the Algerian 
Government on cases involving political prisoners and other unjustly 
detained people.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will continue our strong compliance with 
the Leahy Law and maintain robust vetting procedures.

    Question 7. Will you engage with Algerians on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will make promoting human and civil rights 
and governance one of my highest priorities. In addition to promoting 
human rights for its own sake, encouraging Algeria to uphold such 
commitments underpins nearly every pillar of our bilateral 
relationship.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in Algeria?

    Answer. No.

    Question 11. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. My tenure with the Foreign Service has given me the 
opportunity to manage teams of talented individuals from diverse 
backgrounds. If confirmed, I will firmly uphold equal employment 
opportunity laws and will work to ensure that all of my colleagues, 
regardless of background, have the opportunity to grow professionally 
and pursue positions of leadership in the State Department and 
throughout the U.S. Government.

    Question 12. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that all supervisors take 
mandatory EEO training and strictly adhere to related laws and 
policies. I will emphasize the necessity of transparency, fairness, and 
inclusivity when making hiring decisions, my assessment of my 
subordinates' performance will include evaluation of their commitment 
to diversity, and I will take immediate corrective action if I learn of 
any incident that does not reflect the value the United States and the 
State Department place on diversity and respect for all.



                               __________





                              NOMINATIONS

                              ----------                              


                        TUESDAY, AUGUST 1, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:03 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson [presiding], Gardner, Murphy, 
Shaheen, and Kaine.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    We are holding this hearing today to consider the 
nomination of Stephen B. King of Wisconsin to be the U.S. 
Ambassador to the Czech Republic.
    I certainly want to welcome Steve and his family. I want to 
congratulate you on your selection by the President and thank 
you for your willingness to serve this Nation. I want to thank 
your family for the sacrifice they will be making as well, 
because you will be pretty busy.
    Although I am chairing this hearing because Steve is a 
fellow Wisconsinite who I have come to know over the last 6 or 
7 years, I would like to offer a few words on his behalf.
    Steve is a prominent public servant and businessman, a 
natural leader, and a patriot. Steve was born in Indianapolis 
and raised in Chicago. He eventually settled in Janesville, 
Wisconsin--we have heard of that city before now with Speaker 
Ryan, also his hometown--and his wife, Karen, and their three 
children.
    Early in his career, Steve investigated civil rights 
violations in Jackson, Mississippi, for the Federal Bureau of 
Investigation and then served as an investigator for the U.S. 
Senate Permanent Subcommittee on Investigations. He later 
became special assistant to the U.S. Secretary of Agriculture, 
serving as liaison between the USDA and the Agriculture 
Committees of the House and the Senate.
    Steve left Washington in 1976 to become the director of 
alumni and development at his alma mater, Western Illinois 
University. In 1979, he entered the business world and led a 
management buyout of Tomah Products, and later founded King 
Capital, a successful private investment firm.
    Active in the Boy Scouts of America his entire life, Steve 
is a recipient of the Silver Buffalo award, the organization's 
highest volunteer award for work at the national level.
    Steve's success in public and private sectors is a 
reflection of his strong interpersonal skills, a key 
understanding of governance and leadership, and his personal 
integrity.
    His extensive experience and willingness to serve causes 
greater than himself make him ideally suited to serve as U.S. 
Ambassador to the Czech Republic. I support Steve's nomination 
and urge my colleagues to support him as well.
    With that, I would like to recognize our ranking member, 
Senator Murphy.

                STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Welcome, Mr. King. I look forward to 
hearing your testimony. Congratulations on your nomination.
    This is an important hearing, given the fact that the Czech 
Republic is a crucial ally, one that has supported U.S. policy 
of making sure that Russia understands the consequences that 
come with invading a neighboring country and trying to 
influence elections in and around the region, but also a 
country that has strong economic ties to Russia, also pulls and 
tugs that come from the business community to find a different 
way.
    We have had a very, very strong bilateral relationship, a 
history of very strong Ambassadors in that post, and I know you 
come with a strong endorsement of the chairman of the 
committee. I look forward to hearing your testimony and 
engaging in some dialogue.
    Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    Now we will turn to the nominee's opening statement.
    Mr. King?

  STATEMENT OF STEPHEN B. KING OF WISCONSIN, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                 AMERICA TO THE CZECH REPUBLIC

    Mr. King. Chairman Johnson, Ranking Member Murphy, and 
members of the committee, thank you for taking the time to meet 
with me this morning, and for considering my nomination to 
serve as the next U.S. Ambassador to the Czech Republic.
    Let me also thank you, Chairman, for your kind 
introduction, your service to the country, your leadership of 
the European Subcommittee, and your shared devotion to the 
Green Bay Packers.
    I appear before you today humbled by President Trump's 
nomination of me to serve as U.S. Ambassador to the Czech 
Republic, an unwavering ally in the heart of the European 
continent.
    Prague may be far from my own upbringing in the heart of 
America's Midwest in Indiana, where I was born on the Fourth of 
July, and in Wisconsin, where I lived and worked for most of 
life. But in many ways, it is that not much different.
    International affairs and government service have been both 
trademarks of my professional life. I began my career as a 
special agent of the Federal Bureau of Investigation, and then 
investigated public corruption on behalf of this institution, 
the United States Senate. I eventually used my skills and 
expertise to create innovative businesses that provide many 
good jobs to many people in southern Wisconsin.
    As Karen, my wife of 54 years, and I found success in 
Wisconsin, I now had the opportunity to give back to that 
community. Our shared belief in the American Dream continues to 
grow.
    Our three grown children, Kristen, Steve Jr., and Russ, 
have been our greatest source of pride, along with our seven 
grandchildren.
    It was not that long ago that the Velvet Revolution ended 
the Soviet occupation of then-Czechoslovakia, and the first 
democratic elections in over 40 years were held in 1990. I will 
never forget the awe-inspiring moment when the philosopher poet 
Vaclav Havel was finally elected President after fighting 
against tyranny his entire life.
    If confirmed, I would view my Ambassador role as a 
facilitator of the natural alliance that has grown between our 
citizens and the fiercely independent Czech people. As an 
indispensable NATO partner and ally, the Czechs have gone the 
distance in our strategy to defeat ISIS and have supported 
sanctions against Russia for its invasion of Ukraine.
    In line with President Trump's expectation, the Czech 
Republic should endeavor to increase the percent of its GDP 
devoted to defense, strengthening the NATO alliance and our 
bilateral military and intelligence cooperation.
    The Czech Republic is to be commended for its sacrifices 
for the good of the alliance, and I look forward to working 
with them on behalf of Secretaries Tillerson and Mattis.
    However, as I suspect the committee knows, the once-
resolute and indelible imprint of democracy spreading across 
Central Europe in the 1990s has given way in some quarters to 
current skepticism and self-doubt, where longtime opponents of 
freedom deliberately seek to undermine and devolve democratic 
values and economic freedoms into question marks.
    Today, we need to reaffirm our commitment to allies like 
the Czech Republic and make clear that the United States is 
dedicated to the democratic values we espouse here at home.
    The United States and the Czech Republic share a unique and 
lasting bond of history, from the vision of an independent 
Czechoslovakia spelled out in Pittsburgh in the Pittsburgh 
Agreement almost 100 years ago--their celebration will be in 
the year 2018 of 100 years of independence in Czechoslovakia--
to the post-communist vision and leadership of Vaclav Havel, 
whose bust now stands in the U.S. Capitol.
    If confirmed, I will work to sustain our countries' 
historic ties and expand the people-to-people connections that 
are crucial to that relationship. Like us, the Czechs have 
proven they know democracy and economic freedom require daily 
attention and renewal. Soon, I hope to meet a Czech deputy or 
even a senior minister who has spent his or her entire life 
free of the bonds of tyranny that still haunt their parents and 
grandparents in the Czech Republic.
    The foundation beneath our bond between our countries is 
cast in steel, this steel of shared values: hard, honest work; 
independent thinking; and fidelity to the commitments that we 
make.
    If confirmed as Ambassador, I pledge to this committee and 
the American people that I will work hard, stay honest, speak 
my mind, but always uphold the promises of our Nation.
    At the end of our service, if I am confirmed, when Karen 
and I get ready to fly home, I will measure my performance 
against a few yardsticks. First, did I break anything in the 
residence? Secondly, have we upgraded our partnership across-
the-board? And, thirdly, did I serve the hardworking, patriotic 
team at Embassy Prague well as a leader, a manager, and a 
supervisor, and did I equip them to better serve our country?
    I pledge to each of you to keep these questions at the 
forefront of my mind, particularly the last two, to strengthen 
our partnership with the Czech people to advance our shared 
values and our strategic interests in Europe and around the 
world.
    Thank you, Senators, for your consideration. I am pleased 
to answer any questions you may have.
    [Mr. King's prepared statement follows:]


                 Prepared Statement of Stephen B. King

    Chairman Johnson, Ranking Member Murphy and members of the 
committee--thank you for taking the time to meet with me this morning, 
and for considering my nomination to serve as the next U.S. Ambassador 
to the Czech Republic.
    I appear before you today humbled by President Trump's nomination 
of me to serve as U.S. Ambassador to the Czech Republic, an unwavering 
American ally in the heart of the European continent. Prague may be far 
from my own upbringing in the heart of America's Midwest, in Indiana 
where I was born on the Fourth of July, and Wisconsin, where I lived 
and worked for most of life. But it my mind, and in the hearts of many 
Americans and Czechs, both are part of the same common cultural 
foundation upon which many of our shared values are based.
    International affairs and government service have both been 
trademarks of my professional life. I began my career as a Special 
Agent of the Federal Bureau of Investigation, investigating public 
corruption on behalf of this institution--the United States Senate. I 
eventually used my skills and expertise to create innovative businesses 
that provided good jobs to many of the hardworking people in southern 
Wisconsin. As Karen, my wife of 54 years, and I found success there and 
had the opportunity to give back to that community, our shared belief 
in the American Dream continued to grow.
    Our three grown children, Kristen, Steve Jr. and Russ have been our 
greatest source of pride, along with our seven grandchildren.
    It was not that long ago that the Velvet Revolution ended Soviet 
occupation of then-Czechoslovakia, and the first democratic elections 
in over 40 years were held in 1990. I will never forget the awe-
inspiring moment when the philosopher-poet Vaclav Havel was finally 
elected President after fighting against tyranny his entire life.
    If confirmed, I would view my role as Ambassador as a facilitator 
of the natural alliance that has grown between our citizens and the 
fiercely independent Czech people.
    As an indispensable NATO partner and ally, the Czechs have gone the 
distance in our strategy to defeat ISIS and have supported sanctions 
against Russia for its invasion of Ukraine. In line with President 
Trump's expectation, the Czech Republic should endeavor to increase the 
percent of its GDP devoted to defense, strengthening the NATO alliance 
and our bilateral military and intelligence cooperation. The Czech 
Republic is to be commended for its sacrifices for the good of the 
Alliance, and I look forward to working with them on behalf of the 
President and Secretaries Tillerson and Mattis.
    As the committee knows, the once-resolute and indelible imprint of 
democracy spreading across central Europe in the 1990s has given way in 
some quarters to a current of skepticism and self-doubt, where longtime 
opponents of freedom deliberately seek to undermine and devolve 
democratic values and economic freedoms into question-marks. Today, we 
need to reaffirm our commitment to allies like the Czech Republic, and 
make clear that the United States is dedicated to the democratic values 
we espouse at home.
    Fortunately, our partnership with our Czech allies is a great asset 
in opposing this trend. If there is one thing I instantly understood 
learning from (former) Amb. Richard Graber about America's relationship 
with the Czech Republic, it is that we have both invested our 
reputations and resources in the idea that freedom and free markets 
will create the most just and prosperous societies ever imagined.
    The United States and the Czech Republic share a unique and lasting 
bond of history--from the vision of an independent Czechoslovakia 
spelled out in the Pittsburgh Agreement almost 100 years ago, to the 
post-communist vision and leadership of Vaclav Havel whose bust stands 
in the U.S. Capitol. If confirmed, I will work to sustain our 
countries' historic ties and expand the people-to-people connections 
that are crucial to our relationship.
    Like us, the Czechs have proven they know democracy and economic 
freedom require daily attention and renewal. Soon I expect to meet a 
Czech deputy--or even a senior minister who has spent his or her entire 
life free of the bonds of tyranny that still haunt their parents' 
memories. As a younger cadre of leaders rise in the Czech Republic, we 
will embrace our longstanding responsibility to recognize and assist 
them, whether through sponsored exchanges or merely by making 
introductions to their American counterparts.
    The foundation beneath our bond is cast in the steel of shared 
values: Hard, honest work, independent thinking, and fidelity to the 
commitments we make. If confirmed as Ambassador, I pledge to this 
committee and the American people that I will work hard, stay honest, 
speak my mind, but always uphold our promises as a nation.
    At the end of our service if I am confirmed, when Karen and I get 
ready to fly home, I will measure my performance against a few 
yardsticks. Have we upgraded our partnership across the board? And, did 
I serve the hardworking, patriotic team at Embassy Prague well as a 
leader, manager, and supervisor, and did I equip them to better serve 
our country? I pledge to each of you to keep these questions at the 
forefront of my mind to strengthen our partnership with the Czech 
people, to advance our shared values and our strategic interests in 
Europe and around the world.
    Thank you, Senators, for your consideration. I am pleased to answer 
any questions you may have.


    Senator Johnson. Thank you, Mr. King. I would remind you 
that being a Green Bay Packer fan will get you a few votes in 
the Senate--more than two. We have quite a few fans. It is 
everybody's second team.
    Mr. King. As long as Aaron Rodgers stays healthy.
    Senator Johnson. Can you just, for me, lay out your top 
priorities. If confirmed and you assume the ambassadorship, 
what are the top two or three things you are really going to be 
focusing on?
    Mr. King. I think the first and foremost thing, Mr. 
Chairman, is obviously the security of any and all American 
personnel in the country, starting, of course, with our Embassy 
staff, any ex-pats residing in the country, and then certainly, 
of course, any citizen of our country that is visiting in the 
country.
    Secondly, I view myself as a business person, and I would 
like to be an ambassador that is somewhat business-centric, if 
you will. So my hope is to build on what is already a pretty 
good economic relationship with the Czech Republic.
    And thirdly would just be to leave the Embassy and leave 
the country in better shape in terms of the relationship 
between the two countries, better than I found it.
    Senator Johnson. You mentioned security. When we met in our 
office, you talked about, within your class of future 
Ambassadors, there is a fair amount of concern that, yes, you 
have security for the Ambassador, but not necessarily for the 
Ambassador's spouse. Can you share those thoughts here? I kind 
of would like my colleagues to hear what was being talked about 
within that class.
    Mr. King. There was some concern on the part of several of 
my classmates, who are very important and good people, that the 
security that the State Department provides only extends to the 
Ambassador, not necessarily to the spouse, in terms of outside 
the Embassy or outside the residence. And a number of those 
classmates decided that they were going to fund some private 
security for their spouse.
    Senator Johnson. I think that is an important issue that 
has been raised. I think it is something that Congress really 
ought to take a look at, based on the very dangerous world we 
are living in today, so I appreciate you raising that.
    We have a fellow Badger, a fellow Wisconsinite that was 
also a former Ambassador, Ambassador Rick Graber. I know you 
have spoken with him. Can you talk about some of the words of 
wisdom he has imparted with you, as you start this next chapter 
in your life?
    Mr. King. Thank you, Senator.
    I am here largely because, without ever having been to the 
Czech Republic, I kind of bonded with them largely because the 
folks old Czechoslovakia, even before Czechoslovakia, began to 
migrate as refugees to this country in the late 1800s, and, for 
whatever reason, decided to settle in the upper Midwest. So the 
bulk of the migrants coming over in the late 1800s and the 
early 1900s settled in Michigan, Indiana, Illinois, Wisconsin, 
Minnesota, Iowa. Therefore, I grew up with a lot of their 
descendants. We used to kid each other about our ancestry.
    Then, about 15 or 20 years ago, I befriended a fellow by 
the name of Rick Graber, who was an attorney in Milwaukee who 
subsequently became Ambassador to the Czech Republic under the 
George W. Bush administration, and spent the last 10 years or 
so, when I am with Rick, talking about his experience in the 
Czech Republic, which he said they are a proud people, they are 
an independent people, they are a freedom-loving people. It is 
one of the few countries, especially Prague, that was preserved 
coming out of the war. He said it was an experience of a 
lifetime for me.
    So when the opportunity for me came to serve this 
administration overseas, I told them I would like to go to the 
Czech Republic.
    Senator Johnson. I appreciate that.
    In my last minute, just talk about some of the economic 
ties. What are some of the best opportunities that we have, in 
terms of economic cooperation between the Czech Republic and 
the U.S?
    Mr. King. The T-TIP, obviously, is probably a good start. I 
think we also, as a country, need to work and develop an 
economic relationship with the EU. That will benefit not only 
us and the EU but I think, in particular, the Czech Republic.
    We, the United States, are probably the 13th biggest 
investor, if you will, in the Czech Republic and the third 
outside of the EU. We have wonderful opportunities.
    There are wonderful opportunities for business interests in 
the Czech Republic to invest in the United States. And for that 
reason, I am going to work with the Department of Commerce, the 
Department of State, OPIC, and the Trade Representative to try 
to encourage and enhance and build on the business 
relationship, because, as we all know, a strong economic 
relationship is really kind of a key to any relationship 
between any two countries.
    Senator Johnson. Thank you, Mr. King.
    I will turn it over to Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    I neglected to thank you for your service to the Boy 
Scouts. I know you have been a great regional leader. Speaking 
as a Scout leader myself, I know the organization has been 
getting a little bit of a rough time lately, but I thank you 
for your great service there.
    I think you mentioned this in answer to a previous question 
from Senator Johnson, but as this question was asked of Obama 
nominees for the record, I think it is important just to ask it 
of President Trump's nominees as well. You mentioned you have 
not traveled to Czechoslovakia before. Can I just ask, you do 
not speak the language?
    Mr. King. I do not speak the language. I am looking forward 
to taking some classes, beginning upon my service, should I be 
confirmed. In the morning, I am told, you can have a half-hour 
to 45 minutes of classes every morning. Probably not in my time 
there, assuming I am confirmed, that I become conversational, 
but I take solace in the fact that most every diplomatic 
official discussion usually takes place in English.
    Senator Murphy. Great. So you mentioned your ability to 
have a strong relationship with the business community there. 
Let me ask the question about sanctions through that prism.
    I mentioned in my opening remarks that there are elements 
of the business community in the Czech Republic who are nervous 
about the long-term continuation of sanctions on Russia, given 
the fact that there are historic business ties. And yet, we 
believe that it is in both U.S. national security interests and 
European national security interests to send a strong, 
unequivocal message to Russia that territorial integrity 
matters.
    As the Czechs have seen themselves, Russian interference in 
elections continue. They have set up their own counter-
propaganda center because of their discovery of dozens of Web 
sites inside the Czech Republic that were potentially 
influenced and funded through Russian propaganda efforts.
    So how are you prepared to talk to the business community 
in the Czech Republic about the importance of sanctions? And 
how do you address their concerns about the potential impact on 
the economy and the way that you weigh that effect on the 
important message that we need to send to the Russians?
    Mr. King. I recognize, Senator, that there are some 
concerns within the business community in the Czech Republic 
over some of the sanctions and the impact it may have on them, 
but I think they also step back and realize that the 40 years 
of Russian and Soviet tyranny ruling their country prohibited 
them from practicing the very things--the private enterprise in 
a free economic society.
    So my job, I think, is to continue to engage the business 
community in the Czech Republic, as well as the leadership.
    The leadership of the Czech Republic, the Government, 
actually, has been very supportive of the actions of the EU and 
the United States with regard to sanctions, not only in Ukraine 
but other parts, and they are very concerned about the upcoming 
Russian military training exercises. So I am confident that the 
opportunity will give me, being Ambassador, to work with the 
business community to recognize that sanctions are what they 
are.
    Senator Murphy. U.S. democracy promotion infrastructure at 
the State Department was an important partner during the Czech 
Republic's transformation process. Indeed, the Czechs have 
helped export the lessons that they went through to other 
neighboring countries. They sent transition teams to Ukraine, 
for instance, to help Ukraine make a transfer to democratic 
norms in the way that they did.
    There is an ongoing review at the State Department now 
about the future core mission, and there is a worry that the 
core mission will become all about economic development and 
security, and that a focus on democracy promotion will be 
scrubbed from the State Department's mission.
    You are going to go to a country that has had a long, 
productive history with the U.S. State Department's democracy 
mission. Do you believe that the pursuit of democracy for 
people around the world should be a priority for the United 
States and for the State Department?
    Mr. King. I know it is important to the Czech Republic. 
They are now going to celebrate, next year, about 25 years as a 
new nation. They held their first democratic direct election of 
a President just 4 or 5 years ago and will hold another one in 
2018.
    So I absolutely agree, Senator, that proposing and 
encouraging democratic values that both countries share is 
probably one of the highest priorities that I have.
    Senator Murphy. I appreciate your answer with respect to 
the specific relationship between the United States and the 
Czech Republic. I will not press you on this, except to say 
that there is going to be a very important internal discussion 
happening at the State Department while you will be there. You 
will be a prominent Ambassador inside that department. You will 
be in a country that can tell a very important story about the 
good that comes from the United States promoting democracy 
abroad. You mentioned in your opening comments, rightly, that 
there is a slide away from participatory democracy happening in 
countries that are very close to the Czech Republic.
    I would hope, upon getting your feet on the ground, that 
you would participate in the internal debate happening within 
the State Department and tell the story of the success of U.S. 
democracy promotion in the Czech Republic.
    You may not want to testify as to the reorganization here 
in front of us, but it is a debate that will be happening.
    Mr. King. I understand.
    Senator Murphy. And we look forward to you participating in 
it.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Mr. King, congratulations on the nomination.
    This is a great committee, because we sort of segregate a 
little bit into regions of the world, and these are three 
Europe experts here. My assignment has been Latin America and 
the Middle East, but that is why I like to come to these 
hearings, because it gives me a chance to learn about areas 
where I am not so fluent.
    Let me just tell you a thing that is puzzling me about the 
Czech Republic right now and just get your thoughts about it.
    In the aftermath of the Brexit vote, the popularly elected 
President of the republic called for a referendum about whether 
the republic should stay in NATO and the EU. The Prime Minister 
and Cabinet sort of scotched that idea, so there was not a 
referendum.
    But when a President who is popularly elected who probably 
has a pretty good sense of the will of the people thinks this 
is a good thing to do, then that tells me something is going 
on. Polling in the Czech Republic has shown pretty low approval 
for the EU, even though the Czech Republic economy is deeply 
integrated in the EU. I think 80 percent of the exports of the 
Czech Republic go into the EU.
    So just talk to me a little bit about that. What is going 
on? Should we read the reticence about the EU or NATO as 
anything with respect to the Czech-U.S. relationship? Or is 
this just an internal European dynamic right now?
    Mr. King. Good question, Senator, and I think you captured 
the mood somewhat correctly.
    I think it is really important for the United States and 
its representation overseas, specifically to the Czech 
Republic, to continue to encourage the Czech Republic 
collaboration and involvement, both economically as well as in 
NATO, with its allies in Western Europe. It is our job, I 
think, to take a lead in that. It is beneficial, despite 
Brexit, enjoying a good economic relationship between the Czech 
Republic and its EU partners, as well as the United States. It 
is critical, I think, to the continued blooming of democracy in 
that country.
    Senator Kaine. I am just curious, do you read that as--
should we be concerned at all about the Czech-U.S. bilateral 
relationship, when the President calls for a referendum that 
deals not just with EU membership but NATO membership? Or to 
your interpretation, is it really more kind of internal 
European?
    Mr. King. I think it is more internal. The bilateral 
relationship between the Czech Republic and the United States 
is excellent. It is very, very strong.
    Senator Kaine. I think some of attribution that I have seen 
about this suggests that this anti-EU thing is scuffling about 
the migration issue.
    I think the Czech economy is really integrated into the EU 
economy, especially into the German economy. There are great 
economic ties there.
    So do you have a sense--are there upcoming elections in the 
Czech Republic? And as far as you know, is this migration issue 
playing a significant part in the upcoming elections?
    Mr. King. Another good question, Senator.
    I am not sure how important the refugee issue is playing in 
the elections, but they adopted a parliamentary form of 
democracy in 1990, and the parliamentary elections for both the 
upper and lower houses will be in October. It remains to be 
seen what is going to happen there.
    In terms of the migration and refugees, the EU mandated 
that each member country take so many refugees. It was a kind 
of quota. The Czech Republic has not met that quota. For that 
reason, Brussels, I think, is looking at taking some action 
against not only the Czech Republic but the so-called Visegrad 
Four countries--Hungary, Poland, Slovakia, and the Czech 
Republic--all who have not met their quotas for taking 
refugees.
    The refugee problem is a global problem, and I think that 
is an issue that the Czech Republic needs to work out with its 
leaders in Brussels.
    Senator Kaine. Just to conclude, and then to hand it back 
to the chair, we are always so sensitive. We cannot be involved 
in dictating any decision about internal politics of another 
country. They have to work that out for themselves.
    But we had a hearing last week with the proposed Ambassador 
to the EU. I think one of the things that our Ambassadors can 
often do is not only working within their portfolio but working 
with other U.S. Ambassadors in the region to try to build up 
some of the ties. I think that it sounds like that could be a 
significant portion of what you might do in a productive way, 
should you be confirmed.
    Mr. King. I would agree.
    Senator Kaine. Great. Thank you.
    Thanks, Mr. Chair.
    Senator Johnson. Thank you, Senator Kaine.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. King, congratulations on your nomination. You are going 
to be serving Europe at a very critical time, when I think the 
future of the EU, of NATO, and of the transatlantic alliance is 
really at stake.
    So I want to follow up a little bit on Senator Kaine's 
questions about what Czechs are thinking about in terms of the 
EU and their relationship with the EU, because as I am reading 
the upcoming elections and the potential for victory by the ANO 
party, which is center-right, it sounds like their leader has 
suggested that he does not support the Czechs staying in the 
euro zone. He talks about it as one of sovereignty.
    As Ambassador, recognizing what Senator Kaine said and what 
we know about our need to stay out of the internal politics of 
a country, how do you see the ability of an ambassador to try 
to recognize and highlight the importance of the EU to 
stability in Western Europe and the potential for Russia to 
undermine the EU as part of their way of trying to destabilize 
Western Europe?
    Mr. King. Thank you for the question, Senator.
    It is important, obviously, not only for the United States, 
but I think for the Czech Republic to remain a strong partner 
in the EU, as well as NATO, and they have been such.
    I am not going to speculate as to what party is going to 
win. Coalitions have to take place, and I am not that familiar 
with the local politics there.
    But I feel pretty confident that, whatever happens coming 
out of the election, that the freedom-loving people of the 
Czech Republic and the economic-freedom-loving people of the 
Czech Republic want to remain, the bulk of them, want to remain 
part of the EU.
    And I think part of my job will be to encourage not only 
the Czech Republic to continue its engagement with the EU, as 
well as NATO, to, among other things, as you suggest, prevent 
some of the disinformation and other such things that the 
Russian Government is doing not only in Eastern but Central 
Europe, too.
    Senator Shaheen. Thank you. I agree that is a real threat.
    I think I came in on Senator Murphy asking you the question 
about the new center that they are standing up, did I catch 
that, in the Czech Republic? That is going to be focused on I 
guess responding, pushing back against the disinformation from 
the Russian Government.
    Mr. King. Yes. We support that.
    Senator Shaheen. Absolutely. One of the things that I would 
encourage you to do is to visit Radio Free Europe and Radio 
Liberty, which is headquartered in Prague, because they have 
been very successful certainly in the past and are looking at 
how they can ramp up to respond to the Russian disinformation 
that is going on.
    Mr. King. Indeed, they do. I am starting with that right 
here in this city, where BBC and Radio Free Europe have some 
offices, too.
    Senator Shaheen. That is great. They have made a number of 
reforms that I think are very important. One of the jobs that 
we have is to try to figure out how to make them more effective 
and make sure they have the resources that they need.
    Mr. King. Yes.
    Senator Shaheen. Let me ask you, because in your statement, 
you talk about reaffirming our commitment to the Czech Republic 
and to our allies like the Czech Republic, and making it clear 
that we are dedicated to the democratic values that we want 
them to encourage, that we espouse here in America.
    So I want to follow up a little bit on Senator Kaine's 
question about refugees, because, obviously, one of the big 
challenges that Europe has faced over the last 2 years has been 
migration of so many refugees from Syria, from North Africa, 
from Afghanistan, and the challenge of trying to help, in terms 
of the humanitarian crisis but also looking at resettlement 
efforts.
    To what extent do you think that rhetoric here that 
marginalizes refugees, that suggests that America is not 
interested in having immigrants come to this country, to what 
extent does that undermine our conversations with a country 
like the Czech Republic, as we look at the challenges they are 
facing in Europe?
    Mr. King. Thank you, Senator. Good question.
    We are all sensitive to terrorism and the issue that kind 
of open gates with immigration can present. I am just happy 
that the Czech Republic has bought into the visa waiver 
program, which we launched, which minimizes and gives them 
authority, of course, to prevent certain movement of certain 
people. I think that is important, and I note that the republic 
is serious about preventing terrorism not only in their country 
but in the rest of the European Union.
    For that reason, I am confident that, once I get there, I 
can engage the republic to continue to keep a wary eye toward 
that problem, to that issue, but at the same time, open up 
their doors for people that have truly opportunities to live in 
a free--and want an opportunity to live in a free and 
democratic and economically free country.
    The Czech Republic actually has a strong economy and 
actually has a labor problem, so I know that they, too, would 
welcome the opportunity to have people that can work in the 
country.
    Senator Shaheen. Thank you very much, Mr. King. I look 
forward, and for the committee, to working with you 
individually, because, as you point out, the Czech Republic and 
their continued movement toward democracy and the West is very 
important, as we look at maintaining the partnerships that are 
going to be important to the United States, so thank you.
    Mr. King. Thank you.
    Senator Johnson. Thank you, Senator Shaheen.
    Before I close out the hearing, I will offer an opportunity 
for any further questions.
    With that, again, Mr. King, you will, if confirmed, assume 
a very serious responsibility of not only representing America 
to the Czech Republic but also representing the viewpoints of 
the Czech Republic back to the Congress.
    Mr. King. Indeed.
    Senator Johnson. Very important. Speaking for myself, I 
will be traveling over to Europe. It is also incredibly 
important for Ambassadors, when Members of Congress come over 
to the nations that you are representing, that you really lay 
out, from my standpoint, a very rigorous schedule, laying it 
out so we really understand the issues.
    Again, I want to congratulate you on your nomination. Thank 
you for taking on this responsibility. Thank your wife, Karen, 
and your son, Steve, and your other children.
    It is a great opportunity. We have serious challenges and 
serious responsibilities. So, again, thank you for providing us 
with your testimony and your responses.
    The record will remain open for further questions until 
close of business on Thursday, August 3rd.
    Senator Johnson. This hearing is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
       Submitted to Stephen B. King by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The most important action I have taken in my career to 
promote human rights and democracy was when I served as a Special Agent 
for the Federal Bureau of Investigation. During my tenure with the 
Bureau, I spent two years in Mississippi during the Civil Rights era 
investigating violations of federal laws pertaining to matters 
including human and civil rights.
    A number of these investigations resulted in enforcement of federal 
law and resulted in criminal prosecutions and cessation of human and 
civil rights violations in the State of Mississippi.

    Question 2. What are the most pressing human rights concerns in the 
Czech Republic today? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in the Czech 
Republic? What do you hope to accomplish through these actions?

    Answer. The Czech Republic is widely respected for maintaining a 
strong human rights record, both domestically and globally. However, as 
is the case in all countries, work remains. As noted in the 2016 State 
Department Human Rights report, the most pressing concern in the Czech 
Republic is the integration of Roma into society. For example, while 
the Czech Government recently passed a law designed to improve Romani 
children's access to quality education, press reports indicate that 
over 25 percent of Romani children attend schools for children with 
disabilities, where they receive low-quality education that does not 
prepare them to enter the workforce.
    If confirmed, I will work with the Czech Government and non-
governmental organizations, to urge the full implementation of the new 
education law and other measures necessary to facilitate the 
integration of the Roma people into society. Additionally, I would 
build upon the Embassy's strong work on behalf of the Roma community, 
offering U.S. Government support wherever possible.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Czech Republic 
in advancing human rights, civil society and democracy in general?

    Answer. The largest obstacle confronting human rights in the Czech 
Republic is societal attitudes. Although Czech society is generally 
quite open and tolerant, discrimination against the Roma community 
remains widespread. While the Czech Government has taken some steps to 
integrate the Roma, such as helping to foster greater understanding and 
appreciation of their culture, it can take many years for public 
opinion to change. If confirmed, I would support an open dialogue 
between the Roma community and the Czech Government to better address 
the concerns of the Roma people. I would also engage in personal 
outreach to the Roma community and continue Embassy Prague's programs 
to encourage mutual understanding and reduce discrimination.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Czech Republic?

    Answer. Yes, I am committed to meeting with all of these 
organizations and continuing Mission Czech Republic's strong 
relationship with these groups.

    Question 5. Will you engage with the Czechs on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes, I will fully engage with Czech officials on matters of 
human rights, civil rights and governance, building upon Mission Czech 
Republic's strong body of work in this area.

    Question 6. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you or do any members of your immediate family have 
any financial interests in the Czech Republic?

    Answer. No.

    Question 9. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a businessman, I have witnessed the positive effects 
that diversity can have on the productivity of a company. Over the 
years, the State Department has taken steps to recruit a more diverse 
diplomatic corps that reflects the various ethnicities and cultures of 
the American people, ensuring America's diplomats truly represent the 
face of our diverse country. I believe this emphasis on diversity is 
critical not only to uphold the values of the American people and the 
State Department, but also to set an example for other nations.
    If confirmed, I will maintain an open dialogue with all members of 
Mission Prague on the importance of diversity, encouraging maximum 
communication to ensure everyone's viewpoint is heard and appreciated, 
and also to make sure that traditionally underrepresented groups feel 
fully valued. I will also do my utmost to make sure employees are 
recognized based on merit, regardless of their gender, religion, 
ethnicity, or sexual orientation. I believe that fostering an inclusive 
environment increases the retention of employees, particularly for 
women and minorities who can sometimes feel marginalized.

    Question 10. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I believe that the Chief of Mission plays a critical role 
in establishing the values and high standards of an embassy. If 
confirmed, I will work with supervisors within Embassy Prague to create 
a collaborative and flexible environment that enables individuals to 
freely contribute their ideas. I will also ensure managers not only 
fully comply with the Department's EEO regulations, but go a step 
further by proactively seeking out ways to help identify and counteract 
any unconscious biases which may exist, particularly with respect to 
the recruitment process. If confirmed, I will also reach out to the 
Office of Civil Rights and discuss which additional training sessions 
may be available for the mission, such as an in-person all-hands EEO 
training program.

    Question 11. How will you specifically work to assist the 
Government and civil society groups of the Czech Republic in countering 
the Russian Government's malign influence?

    Answer. The Czech Republic has a multifaceted relationship with 
Russia, but the Government has taken an increasingly active approach 
toward countering Russian disinformation and malign influence, 
launching its Center for Terrorism and Hybrid Threats in January 2017 
to counter Russian disinformation campaigns. If confirmed, I will work 
with the Czech Government to hold Russia accountable for its ongoing 
aggression in Ukraine, to ensure Moscow meets its international 
obligations, and to deter Russia from actions that undermine 
international peace and security. In addition, I would build on Embassy 
Prague's close cooperation with Czech civil society groups on 
countering the threat of negative Russian influence through public 
engagement and programming.

    Question 12. What specific tools will you use to address this 
threat?

    Answer. Embassy Prague, in collaboration with the Czech Government, 
has put in place several relevant programs, such as support for 
conferences on countering disinformation, media literacy courses for 
Czech university students, training events for Czech and Russian 
speaking journalists, and inclusion of Czech journalists on reporting 
tours to Ukraine and NATO.
    If confirmed, I will encourage even greater cooperation on these 
types of proactive efforts by the Czech Government to prevent Russian 
disinformation and malign influence campaign. I will also seek to 
increase cyber cooperation and help the Czechs move away from their 
reliance on Russia through military modernization, and through 
diversification of energy sources, routes and suppliers, for themselves 
and for the wider European Union.



                               __________





                              NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 12, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Gardner, 
Young, Barrasso, Portman, Cardin, Shaheen, Coons, Murphy, 
Kaine, Markey, Merkley, and Booker.
    Also Present: Senator Enzi.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  Foreign Relations Committee will come to 
order.
    And, in keeping with the great way that Senator Enzi runs 
his committee, we start on time here, too. And, as a matter of 
fact, Senator Cardin and I will defer our opening comments, out 
of respect for you, so that you can make your introduction and 
go on about your business. But, you honor us by being here. We 
thank you for that. And the floor is yours to introduce one of 
our nominees.

              STATEMENT OF HON. MICHAEL B. ENZI, 
                   U.S. SENATOR FROM WYOMING

    Senator Enzi. Thank you, Chairman Corker and Ranking Member 
Cardin.
    Thank you for the opportunity to appear before the 
committee this morning on behalf of Eric Ueland, the 
President's nominee to serve as the Under Secretary of State 
for Management. He has been my budget director. He is an 
excellent manager. He has tremendous historical knowledge, and 
he is able to coordinate many efficiently.
    Eric was born and raised in Portland, Oregon, and attended 
college in San Francisco. He remains loyal to his West Coast 
roots. After graduating college, he had actually considered 
teaching diplomatic history. While he never had a chance to 
pursue that interest, the opportunity to serve at the State 
Department in a role that supports the creation and execution 
of U.S. foreign policy will be a great privilege.
    He began work in the legislative branch in 1989, and served 
in a variety of positions, including running the office of the 
Senate Majority Leader and serving the Senate Assistant 
Majority Leader, as well as now overseeing the Senate Budget 
Committee for the past 4 years. He is careful in that work, 
precise in his analysis, thoughtful with others, and dogged on 
behalf of his bosses and their goals. He has worked for and 
with Republicans and Democrats, Senators and Congressmen, and 
Democratic and Republican administrations. He is comfortable 
working across the partisan divide and building coalitions to 
bring legislation across the finish line.
    As a successful Senate staffer going to a significant 
Department position, he will be an asset not just for the 
Department, but for Congress, as well. His understanding of how 
we work, his appreciation for the challenges we face, and his 
ability to dive in with us as a partnership to find solutions 
for our shared responsibility on behalf of America's foreign 
policy, all that will stand us in good stead.
    A key to Eric's value for me has been his interest in very 
carefully learning how a law or process actually works. 
Examples include his facility with Senate rules and precedents, 
and the Budget Act, our budget enforcement regime, and the 
reconciliation process.
    I have also mentioned his historical knowledge. He is 
always open to new information and new learning, and reflecting 
it accordingly. I know we will have that same ability and 
talent as he enters the executive branch to learn the operation 
of the Department, the rules under which it works, how it 
interacts with Congress and partners across the executive 
branch, and how to best and appropriately carry out his 
responsibilities on behalf of the Secretary and the 
administration.
    We all know that the makeup of the Senate requires that 
Senators cooperate with each other and provides many 
opportunities for Senators and staff to both learn that lesson 
and then put it into action. I believe that experience will 
inform Eric's ability to work with the Department's various 
stakeholders, including diplomats, the Civil Service, and 
partners across the Federal Government and internationally, and 
members and staff here at the committee and in Congress.
    Eric is also a careful manager who has had responsibility 
here in the Senate at several offices, with budget formulation 
and execution, personnel recruitment and retention, and 
supporting professional development of his staff. The scope of 
the Department and the challenges it faces might larger than 
managing a Senate personnel office or leadership office or 
committee office, but I believe Eric's management style will be 
applicable at the State Department, too.
    Eric can successfully handle the new challenges and 
opportunities that he will face, and I am confident he will be 
a strong and capable Under Secretary for Management on behalf 
of the Secretary and his senior team and for our diplomats 
around the world.
    So, I commend Eric's nomination to the committee, and urge 
his favorable consideration.
    Thank you.
    The Chairman.  Well, thank you for being here. And, as you 
know, you are welcome to go and continue your other duties. I 
know you have a important meeting this afternoon at 2:30, but, 
again, thank you so much for being here.
    And I think what the ranking member and I have decided is 
that we will give opening comments for both panels now.
    So, thank you so much for being here. And we will see you 
later today.
    The position that Senator Enzi was just mentioning is 
vitally important to the functioning of the Department. 
Fourteen bureaus and offices report to the Under Secretary for 
Management, including Diplomatic Security, Consular Affairs, 
and Overseas Building Operations. The Under Secretary is 
responsibility for the allocation of State Department 
positions, funds, and any other resources required to implement 
the foreign policies of the United States Senate.
    In addition to making the trains run on time at the 
Department, the Under Secretary has the critical task of 
securing our people and families abroad. This is never an easy 
undertaking, but it is particularly challenging now, given the 
complexity of our current threat environment.
    Department is also in the middle of an extensive 
reorganization process, which will require heavy involvement 
and deft leadership from the Under Secretary. This committee 
has been concerned by some of the Department's recent 
management challenges, has tried to play a constructive role in 
making the Department more efficient and effective through our 
State Department authorization bill. I hope our nominee shares 
our goal of a stronger and more agile State Department. And I 
look forward to your cooperation on the authorization bill, 
should you be confirmed.
    On the next panel of nominees, we have The Honorable John 
Bass to be Ambassador Afghanistan; Mr. Justin Siberell to be 
Ambassador to Bahrain; and Dr. Steven Dowd to be U.S. Director 
of the African Development Bank.
    A more concerted effort is planned by the administration to 
address U.S. interests in Afghanistan through a more focused 
and more firm diplomacy with Afghanistan's neighbors and 
others. Our embassy country team in Kabul must be properly 
prepared, equipped, and led to make the most of this new U.S. 
effort to create better outcomes that serve our national 
security interests. I believe Ambassador Bass has that 
experience, and I look forward to hearing how he plans to 
utilize our resources to meet the President's expectations.
    Bahrain is an important ally of the United States and the 
Middle East, and hosts a critical military base for our forces 
in the region. Sadly, the country is also facing unrest amongst 
its majority Shi'a population against a Sunni-led monarchy, 
resulting in government crackdown of its dissidents. I look 
forward to hearing from Mr. Siberell about his goals and the 
vision for U.S. engagement in Bahrain in this complicated 
political environment.
    The African Development Bank provides resources developing 
countries that, if utilized properly, present opportunities to 
help those countries grow their economies, improve their 
standards of living, which ultimately serves our U.S. interest. 
If confirmed the U.S. Director at the African Development Bank, 
Mr. Dowd would play an important role in representing the 
United States interests at an operational level, helping to 
ensure money is spent wisely, and protecting our investments.
    With that, I would like to recognize our distinguished 
Ranking Member for his comments.
    Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. And thank 
you for scheduling this hearing.
    I want to welcome all four of our nominees, and thank each 
of them for their willingness to serve our country in 
critically important positions. It is a great sacrifice for 
public service, and we thank you for that. And we know it is a 
family issue, that the family has to be supportive of that 
effort, so we thank the members of the family for being willing 
to share your family member with our country.
    Mr. Ueland, it is good to see you, member of the Senate 
family. It is always nice to have a member--you get certain 
privileges--not all, but you get certain privileges by your 
association with the United States Senate. You have been 
nominated to a position of great trust and importance for the 
proper functioning of the Department of State, the Under 
Secretary of Management. This is--it is not a job that often 
generates flashy headlines, but it is a job that is absolutely 
critical, often behind the scenes, in a quiet way, for the 
proper functioning of our foreign policy.
    And as I consider the challenges that you face that I 
have--I have been struggling, over the past several months, to 
understand the management philosophy of the Department's 
current leadership. I am struggling to understand the 
administration's approach to the Department's budget, 
management, reorganization, and personnel. There is a 
significant obligation on you, as we consider your nomination, 
to help this committee better understand how the administration 
is thinking about and approaching these issues, and helping us 
to work through our concerns as we move forward.
    As I have expressed before, I remain deeply concerned that 
the administration's approach to reorganization of the State 
Department is a solution in search of a problem. It has the 
appearance of a precooked and ideological-driven exercise. Both 
this committee and the Appropriations Committee have expressed 
our concerns and made it clear that the road to reorganization 
runs through Congress.
    I also want to flag a couple of issues where we have had 
concerns over the past few months, including the way the 
Department handled the Rangel and Pickering Fellows, the 
suggestion that the Consular Affairs and the Population, 
Refugee, and Migration Bureau be moved wholesale from the 
Department to the Department of Homeland Security, and the 
apparent lack of urgency in filling critical positions, such as 
the Assistant Secretary for Diplomatic Security. I do this, not 
to relitigate concerns with you, but, rather, to suggest that 
real, pressing needs for proper management guidance at the 
Department.
    When we see things like the Department seeking to reduce 
its workforce through attrition, where critical functions and 
expertise are lost, it suggests an operation that either does 
not understand or does not care about using proper management 
tools to steer that process. So, as I said, I have concerns 
about the management of the Department. I am hopeful that you 
will be able to reassure this committee on the core issues of 
how you intend to bring to bear your experience in order to 
institute functional management and processes for the 
Department.
    My overriding concern is that, without proper management 
and leadership at the Department, the United States is at risk 
of effectively leaving the stage as a global leader. The 
Department of State plays a vital role at the heart of our 
Nation's foreign policy by maintaining our global stature, 
ensuring the security of our citizens, enhancing our 
prosperity, and supporting our allies and partners around the 
globe who share the ideals and values that are the heart of 
what makes America a unique and exceptional Nation. I trust 
that we would--you would agree that, if the Department does not 
function properly, the United States role in the world, our 
national security, is at risk. Your job, if confirmed, will be 
to see that that does not happen. So, I look forward to the 
discussion that we will have during this hearing.
    I also wanted to welcome the three nominees that will be on 
the second panel. For Ambassador Bass, thank you for being 
willing to come back for a second hearing before this 
committee. And usually one is all people can tolerate. So, 
thank you for your willingness to continue to serve our 
country. I think the President has selected a very well-
qualified person for this critical and difficult posting.
    I must express my concern, however, over President Trump's 
long-awaited announcement of a South Asian strategy, last 
month, which was short on details and has raised many questions 
on what his implementation will entail. I diverge from the 
President on his proposed troop increase. I think that this is 
a singular focus on killing terrorists, ignores the complexity 
of the situation in Afghanistan and United States interests 
there. Our approach to Afghanistan must be centered around a 
bold renewed effort to forge a negotiated political settlement, 
working with the Afghan and regional actors. We also must spur 
progress on accountability for human rights abuses and an end 
to corruption, which undermines the Afghan Government's ability 
to secure a suitable peace. These goals are the best long-term 
bulwarks against the risk that Afghan territory could again be 
used as a base for terrorist activities against us or our 
allies. I will be introducing legislation shortly that 
addresses these considerations by hosting the United States 
diplomatic and programmatic engagements on peace, justice, and 
reconciliation in Afghanistan. I hope this committee will have 
the opportunity soon to have a full hearing on Afghanistan and 
South Asia, giving the pressing U.S. foreign policy interests 
in that region.
    Our Ambassador to Afghanistan will be on the front lines of 
implementing this administration's strategy, and I welcome the 
opportunity to hear from you today about your priorities and 
prospectus on how best to approach this task. I believe that 
sustained diplomatic engagement by senior U.S. officials is 
needed now more than ever. We will not solve this conflict 
through military engagement alone, and our counterterror 
interests in Afghanistan are intertwined with political, 
economic, and social issues. So, the diplomatic and 
programmatic efforts of the State Department of Afghanistan are 
critical, and our most senior diplomat in Kabul must engage 
personally and regularly to help move the ball forward on 
peace, justice, and reconciliation.
    Mr. Siberell, for--on--Bahrain and the United States have a 
longstanding partnership and many shared interests, including 
confronting Iran's aggression, reversing the spread of ISIS, 
countering terrorist financing, and maritime security. I 
listened to the Chairman as he expressed his concerns about 
Bahrain. Bahrain is a key partner to the United States. Key 
partner. We have military interests, we have counterterrorism 
interests. And yet, there are significant human rights concerns 
that we have with the way that Bahrain treats the Shi'a 
population. We must engage those issues to have a sustained 
partnership with Bahrain. And our Ambassador must take the lead 
to make it clear that we can have partners that have very 
important strategic interests, but we also must make 
advancements on the manner in which they handle human rights 
and protection of universal freedoms, such as the freedom of 
speech and assembly. These developments that have occurred in 
Bahrain undermine Bahrain's stability, compromise its ability 
to be a security partner, and run contrary to U.S. interests.
    Finally, I am pleased to welcome Joseph Dowd, nominee to be 
the U.S. Executive Director of the African Development Bank. 
Africa is a continent of great promise, but today it is--it--
presenting us with great challenges. I noticed you have some 
interesting early history in Africa, and dealmaking experience 
in the area of food, infrastructure, and transportation that 
are key priorities for Africa today. I believe that will suit 
you well for the position that you have been nominated to.
    I look forward to the discussion with all four of our 
nominees.
    The Chairman.  We thank all four of you, for being here and 
for listening to long opening comments by both of us, but we 
got it all out of the way, and now we are ready for you.
    And so, Eric, if you would, take about 5 minutes to make 
your comments. Any additional materials, without objection, 
will be entered into the record. And, with that, go ahead and 
present your testimony. Thank you for being here.

STATEMENT OF ERIC M. UELAND, OF OREGON, NOMINEE TO BE AN UNDER 
                SECRETARY OF STATE (MANAGEMENT)

    Mr. Ueland. Thank you, Mr. Chairman. I appreciate it very 
much.
    Mr. Chairman and Ranking Member Cardin, Senators, good 
morning. Thank you for the privilege of appearing before the 
committee.
    With me this morning are my wife, Cathleen, and my 
daughters, Brigid and Charlotte.
    My public service, as you mentioned earlier, has centered 
for many years on the legislative branch. And, thanks to the 
courtesy of several members, we have all had the chance to see 
Congress up close as part of that extended Senate family. We 
thank you very much for that privilege, and for the privilege 
extended to us from any different predecessors.
    I am humbled this morning at the prospect of serving our 
Nation as Under Secretary of State for Management. I am 
grateful to both President Trump and Secretary Tillerson for 
their confidence in me and for nominating me to serve in this 
capacity.
    Our Nation is now engaged in a robust conversation about 
her appropriate role on the world stage and how to confront the 
challenges that we face. The Department serves to express the 
voice and the vision of the President through the Secretary. If 
confirmed, I look forward to taking responsibility for the 
management family at the Department. The 16 bureaus and offices 
for which the Under Secretary is responsible provide the 
platform for our Nation's diplomacy, including security, 
embassy construction, logistics, medical services, human 
resources, budget and finance, training, and many other 
critical functions. Our foreign policy must be carried out 
around the world at 275 embassies, consulates, and other 
missions on a platform that supports the President's foreign 
policy.
    While the Department does much very well, I know it also 
faces continued challenges in several areas which fall under 
the management portfolio. For example, the security of staff in 
facilities overseas remains an issue. The Department, with 
congressional support, continues a strong construction program 
for new secure embassies and consulates, with 133 new 
diplomatic facilities completed since 1999. Additionally, a 
consolidated security training center is under construction in 
Virginia to provide all Foreign Service Officers hands-on 
training every 5 years. Both of these efforts have, and they 
will, save lives overseas. I expect to be particularly focused 
on staff and facility security during my tenure, if confirmed 
by the Senate.
    As with many government and private institutions, 
cybersecurity is a major concern, especially with the 
Department's worldwide presence and extensive data systems. I 
will work to ensure that the Department has a modern and robust 
IT infrastructure that supports our diplomatic efforts and 
protects the critical data of the Department. During my tenure 
as staff director of the Budget Committee, I have faced the 
challenges of working to harmonize specific department and 
agency budgets, along with congressional and administration 
priorities, inside an integrated budget framework. I anticipate 
the need for harmony, collaboration, and cooperation in this 
job, too, if confirmed, including with Congress.
    The formulation of negotiation for, and implementation of, 
Department spending rests in the Office of the Under Secretary 
of State for Management. If confirmed, I look forward to 
working with partners inside the executive branch and here in 
Congress to bring the State Department's budgets into law and 
see that those laws are faithfully executed. Given the past 
challenges Congress has faced authorizing the State Department, 
I hope also that we can work together to write and enact a 
durable and long-lasting authorization statute to reflect 
shared priorities of Congress and the executive branch.
    Although the executive branch will be a new environment for 
me, I am confident that lessons I have learned here in the 
Senate will serve me well in my new role. During my decades in 
the Senate, I have recruited, assembled, and deployed highly 
qualified staff, created professional and legislative goals, 
identified partnerships and built coalitions, and worked 
strongly on behalf of other staff and other members. I am 
excited to now work on behalf of the President and the 
Secretary in the Department, and look forward to finding new 
opportunities for public service there.
    If confirmed, I will be committed to a continued 
partnership with the committee and Congress in support of a 
strong and capable Department that effectively advocates for 
the United States interests around the world.
    Thank you again for the privilege of appearing before you 
this morning and your consideration of my nomination. Senators, 
I am happy to take your questions.
    [Mr. Ueland's perpared statement follows:]


                  Prepared Statement of Eric M. Ueland

    Mr. Chairman, Ranking Member Cardin, Senators, good morning. Thank 
you for the privilege of appearing before the committee.
    With me this morning are my wife, Cathleen, and my children, 
Stephen, Brigid, and Charlotte. My public service has centered for many 
years on the legislative branch, and thanks to the courtesy of several 
Members, we've all had the chance to see Congress up close, as part of 
the Senate family. We extend our thanks to you and many predecessors 
for such a privilege.
    I am humbled at the prospect of serving our nation as 
Undersecretary of State for Management. I'm grateful to both President 
Trump and Secretary Tillerson for their confidence in me and for 
nominating me to serve in this capacity.
    During my years of service on Senate staff, the world has changed 
quite a bit. From the fall of the Berlin Wall and the end of the Soviet 
Union, to the rise of terrorism, and even the creation of new nations, 
I have witnessed a wide variety of international opportunities and 
challenges for the United States.
    But through them all, what endures has been the Department's 
responsibilities on behalf of the United States.
    Our nation is now engaged in a robust conversation about her 
appropriate role on the world stage, and how to confront the challenges 
we face. The Department serves to express the voice and vision of the 
President through the Secretary. If confirmed, I look forward to taking 
responsibility for the management family at the Department. The 16 
bureaus and offices for which the undersecretary is responsible provide 
the platform for our nation's diplomacy, including security, embassy 
construction, logistics, medical services, human resources, budget and 
finance, training, and other critical functions.
    Our foreign policy must be carried out around the world--at 275 
embassies, consulates, and other missions--on a platform that supports 
the President's foreign policy. While the Department can do much well, 
I know it also faces continued challenges in several areas which fall 
under the Management portfolio.
    For example, the security of staff and facilities overseas remains 
an issue. The Department, with Congressional support, continues a 
strong construction program for new, secure embassies and consulates, 
with 133 new diplomatic facilities completed since 1999. Additionally, 
a consolidated security training center is under construction in 
Virginia, to provide all Foreign Service Officers hands-on training 
every five years. Both of these efforts have, and will, save lives 
overseas. I expect to be particularly focused on staff and facilities 
security during my tenure, if confirmed by the Senate.
    As with many government and private institutions, cyber security is 
a major concern, especially with the Department's worldwide presence 
and extensive data systems. I will work to ensure that the Department 
has a modern and robust IT infrastructure that supports our diplomatic 
efforts and protects the critical data of the Department.
    During my tenure as staff director of the Budget Committee, I've 
faced the challenges of working to harmonize specific department and 
agency budgets, along with Congressional and administration priorities, 
inside an integrated budget framework. I anticipate the need for 
harmony, collaboration, and cooperation in this job too, if I am 
confirmed.
    The formulation of, negotiation for, and implementation of 
Department spending rests in the Office of the Undersecretary of State 
for Management. If confirmed, I look forward to working with partners 
inside the executive branch, and here in Congress, to bring the State 
Department's budgets into law, and see that those laws are faithfully 
executed.
    Given the past challenges Congress has faced authorizing the State 
Department, I hope that we can work together to write and enact a 
durable and long-lasting authorization statute to reflect our shared 
priorities.
    This begins with ensuring clarity of mission. The Department of 
State has had multiple mission statements over the years as well. We 
need to ensure that everyone knows where we are going, what we are 
doing, who is responsible, how the work is to be carried out, and when 
the job is done, that we all ended up where we set out to go.
    Next, our personnel. The people of the Department are its strongest 
asset. They are the face of our country to the world. Here at home, 
many employees work to support those abroad. And together, they bring 
their talents to bear on a multiplicity of problems and challenges, to 
advance the United States' agenda in the international arena, build 
partnerships with other departments, agencies, and nations, and work in 
the most dangerous parts of the world. A strong, talented, 
representative workforce is essential for the Department's success.
    Then, processes. For decades under both Republicans and Democrats, 
leadership at the Department has worked to help ensure the Department 
could adapt to an ever-evolving world. If confirmed, my job will be to 
help Secretary Tillerson and Deputy Secretary Sullivan move ahead with 
the improvement and re-design underway at the Department, while 
supporting efforts to advance the foreign policy of the President.
    And finally, execution. The role and responsibility of the 
Undersecretary for Management is to support the Secretary and ensure 
effective operations of the Department. With a workforce of over 14,000 
Foreign Service employees and 11,000 civil service employees, and an 
appropriated budget of nearly $56 billion for Fiscal Year 2017, my work 
to help enhance recruitment, identify and focus talent, ensure smooth 
and successful operations, prepare budgets, and coordinate with the 
White House, the OMB, and other departments and agencies with whom we 
collaborate--all to contribute to a successful and fully engaged 
Department.
    Although the executive branch will be a new environment for me, I'm 
confident that the lessons I've learned in the Senate will serve me 
well.
    During my decades in the Senate, I've recruited, assembled, and 
deployed highly qualified staff, created professional and legislative 
goals, identified partnerships and built coalitions, and worked 
strongly on behalf of others. I am excited to work on behalf of the 
President and the Secretary in the Department, and look forward to 
finding new opportunities to serve.
    If confirmed, I will be committed to a continued partnership with 
the committee and Congress in support of a strong and capable 
Department that effectively advocates for the United States' interests 
around the world.
    Thank you again for the privilege of appearing before you this 
morning, and your consideration of my nomination.


    The Chairman.  Thank you. I will probably ask a few, and 
then retain the rest of my time for later. But, thank you for 
that testimony.
    Obviously, we have begun the process, over the last several 
years, of State Department authorizations. We feel that it is 
important for us to do that, and ultimately complete an entire 
State Department authorization. Just wondering what your 
thoughts are, after spending decades on the Hill, relative to 
that process.
    Mr. Ueland. Senator, thank you very much for that question. 
And yes, over the years here, I know that this committee has 
worked repeatedly on efforts to bring State Department 
authorizations into existence. Democrat majorities, Republican 
majorities; Democrat administrations, Republican 
administrations. I think, in my previous roles here on the 
Hill, I have always worked hard to be very supportive of the 
committee and its legislative efforts to authorize the full 
scope and ambit of Department programs. And I expect that, if I 
have the opportunity to serve, following confirmation, that I 
will be robustly engaged with this committee as it works to 
bring a State Department authorization through the Senate, 
through Congress, and ultimately for signature to the 
President.
    The Chairman.  So, you and I have had a good deal of 
interaction. And, just on that note, sometimes staffers who 
have been up here for many, many years can take on an attitude 
that Senators work for them. And I have seen that happen in--
even in some of our encounters. And so, I think it is important 
for you to talk a little bit about that. The culture at the 
Department is not good right now. There is not a lot of 
teamwork felt there right now. And having someone who takes on 
a temperament of being very effective but sort of running over 
people in the process could be detrimental to the organization. 
And I wonder if you might talk a little bit about that here.
    Mr. Ueland. Senator, thank you very much for that question. 
And I very much appreciate the reality that transitioning from 
the legislative branch to the executive branch, as I said in my 
prepared testimony, will be a new venue, a new environment for 
me.
    I do know that I have a lot to learn, and I do know that 
some of the most capable teachers for that education process 
are going to be the very talented staff at the Department. 
There are 16 offices and bureaus for which the Under Secretary 
of State for Management is responsible. And I expect that I 
will be going through a very accelerated education process in 
order to understand, crisply and clearly, their needs and 
opportunities for action, as well as their day-to-day 
responsibilities for creating and sustaining this very strong 
platform and prosecution of America's foreign policy around the 
world.
    As I said, I have a lot to learn. And I am not coming in 
with a presumption that I not only know it all, but that I have 
learned it all as a result of the confirmation process and the 
education that I have received so far. So, I am going to enter 
this job, if I have the privilege of being confirmed, with big 
ears wide open, with an objective to learn as much as I can as 
quickly as I can on behalf of the personnel in our Foreign 
Service, our Civil Service, and certainly our locally employed 
employees around the world, in order to fully and successfully 
carry out the State Department's mission and objective of 
prosecuting America's foreign policy around the world.
    The Chairman.  Yeah. One of the things, though, that we all 
count on--we actually engage a great deal with the person in 
this position. It is very important that we have a good 
relationship with this person, because there are congressional 
notifications that take place. Many cases, we want to know 
background and materials; we want to do that on a timely basis. 
And I guess I would like to have you not just speak to the 
staff that will be underneath you, but just your interactions 
with people here on the Hill, relative to those kinds of issues 
that are important to us. And, you know, once people are 
confirmed, sometimes they take on a little bit different 
attitude as to how they deal with folks. I wonder if you might 
address that.
    Mr. Ueland. Senator, thank you very for--much for that, as 
well. And I agree, I have had colleagues and friends, over the 
years, who have been confirmed and sometimes forget from where 
they came. Because of those experiences over the years, I think 
that, as I mentioned in my prepared opening statement, the 
emphasis on partnership with Congress is going to be 
omnipresent with me. To your point, this role has a significant 
continued interaction with both this committee, its counterpart 
in the House, and certainly the Appropriations Committees. And 
I expect that counsel of the Assistant Secretary for 
Legislative Affairs to be spending a fair amount of time 
comprehensively engaged with the Hill to explain operations and 
objectives and responsibilities, and ways that we are 
recommending proceeding forward on anything from reorganization 
to our budget and spending priorities--to your point, required 
notifications and appropriate interactions, as well as seeking 
input; not just letting you know what is going on, but seeking 
counsel, advice, potential opportunities for direction, and 
information to feed back into, not just the execution of this 
role, but, as appropriate, report it back to the Deputy 
Secretary and the Secretary, as well.
    So, I do not think that I am going to lose sight, having 
been a congressional staffer for many years, of the need and 
the value for a robust conversation and partnership with this 
committee, if I have the privilege of being confirmed.
    The Chairman.  Yeah. Well, thank you. I have some 
additional questions, unless they are asked by others.
    With that, Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Mr. Ueland, I really appreciate your testimony, 
particularly your encouragement on the Congress passing a State 
Department authorization in a routine manner, which I think 
would strengthen the unity on foreign policy in this country. 
So, I think that is a very important point. Under Chairman 
Corker's leadership, we have been making significant progress 
on that in the last 3 years. We passed out of this committee a 
State authorization, this year, that we hope will move forward. 
And I just want to concentrate on one part of that, which deals 
with reorganization of the State Department. A new 
administration is looking at potentially significant changes 
within the State Department. And, as I said in my opening 
comment, it is critically important that that be done in 
conjunction with the Congress. Both our committee and the 
Appropriations Committee have already spoken to our 
expectations, that there is going to be a close relationship in 
this process. Secretary Tillerson has testified before this 
committee indicating his commitment to work with this committee 
in a close manner.
    And one of the more visible signs of reorganization is how 
Special Envoys are handled. And I want to compliment the 
administration in listening to us. There has been some 
correspondence back and forth. We have it also in our State 
Department authorization bill. And we are certainly consulting 
as to how the Special Envoys will be handled. Do we have your 
commitment that that close relationship--does not mean we will 
always be in agreement, but that close relationship will exist 
between you, if confirmed, and this committee and the Congress 
on input as to how reorganization takes place so that the 
Congress is part of the process?
    Mr. Ueland. Absolutely, Senator. I think, to your point, 
both the Secretary and the Deputy Secretary, in conversations 
here at this committee, have expressed their interest and 
willingness to interact with the committee as they go through 
the process, with the employees, of thinking through ways to 
more effectively prosecute America's diplomacy in the 21st 
century. And I certainly expect that, to your point, if I have 
the privilege of being confirmed--to the extent, in addition to 
the responsibilities that the portfolio of bureaus and offices 
have that already require constant communication with Congress, 
to be part of, not just the reorganization effort, by virtue of 
everything that the Under Secretary of Management is 
responsible for, but, again, to be working very cooperatively, 
conversationally, providing information, seeking input and 
feedback, providing explanations and rationales for the thought 
process that we are engaged, and potential recommendations 
about ways to continue to strengthen the ability of the 
Department to execute foreign policy around the world.
    Senator Cardin. Thank you. There will be times, as the 
Ranking Democratic member on this committee, that I will be 
requesting information from you in order to carry out our 
responsibilities here on the committee. Will you respond 
promptly and fully to those requests?
    Mr. Ueland. Senator, I expect that I will be responding 
promptly and fully to all requests, ranking as well as 
majority, during the pendency of my tenure, unless I am told by 
higher authority not to, or modify the response. But, my 
instinct--again, having been a Senate staffer for many years--
is to provide as much information as possible, as quickly as 
possible, to the committee, upon request, but, as well, 
continue a very extensive conversation with this committee, the 
House committee, and our Appropriations Committee as part of 
the portfolio of what I am responsible for, but also the effort 
underway by the Secretary and the Deputy Secretary on questions 
of reorganization.
    Senator Cardin. The Subcommittee on Foreign Ops has made 
its recommendations, in the Senate Appropriations Committee, on 
the State Department budget. The President submitted his 
budget. The comments, among Democrats and Republicans, as to 
the President's budget, as it related to the State Department, 
was pretty consistent, a pretty different view. Do you have an 
opinion as to the resources that you need and whether the 
Congress is doing the right thing in providing more resources 
than the administration has asked for?
    Mr. Ueland. Senator, thank you for that question. The 
legislation was reported on Thursday, and, courtesy of 
preparing for this hearing, I have not had a chance to sit down 
and review the reported proposals from the subcommittee from 
last week. Until--unless I have the privilege of being 
confirmed, sir, I do not have fully formed opinions. I have 
read the budget justification for the submission for FY18--
2018--that was provided earlier this year. Obviously, how a 
statute is enacted is a cooperative process between the 
executive branch and the legislative branch.
    Senator Cardin. Let me ask you the question in a slightly 
different way.
    If Congress passes the resources, and it is signed into 
law, will you carry out the congressional mandate and intent 
through the funds that we appropriate for the purpose in which 
Congress has appropriated those funds?
    Mr. Ueland. Senator, if Congress has passed, and the 
President has signed, legislation calling for expenditure of 
resources in particular areas, absolutely. When I said that--
earlier, that I really believe in the need that laws be 
faithfully executed, that covers this question, I believe, and 
is one of the important responsibilities of the Under 
Secretary, if I am confirmed.
    Senator Cardin. Thank you. I appreciate that.
    Mr. Ueland. Your welcome, Senator.
    The Chairman.  Senator Portman.
    Senator Portman. Thank you, Chairman.
    And, Mr. Ueland, thank you for being here, because that 
means you are stepping up to take on a new task that is really 
important, management of the State Department. I think Chairman 
Corker said it right when he said we have got some morale 
issues there right now, from what I understand. And it is also 
important that you have been a former chief of staff to a 
Majority Leader and to a Whip. And I got to work with you when 
you were director of the Budget Committee. As the staff 
director, you did a good job, and were effective in not just 
your command of the budget numbers, but also managing a team 
that focused on the Chairman's priorities at the time. So, I 
have seen you in operation. You know us. This committee is 
incredibly important in the process of the management side, as 
we have seen with the authorization bill we got through the 
committee, with the Chairman's help. So, that relationship you 
have with this place, understanding how we operate, I think is 
very important, on the management issues and beyond.
    I have got two questions for you. One is with regard to 
security. I noticed, in your testimony, you talked about your 
interest in protecting, I think you said, staff and facilities. 
And, you know, sad that we live in a world of increasing danger 
to our Foreign Service staff and those in-country nationals and 
Americans. In recent testimony, Secretary Tillerson has noted 
the potential budget impact on the embassy security issues 
beyond 2018. So, my question to you is very simple. How do you 
intend to work with the Secretary and others to ensure that the 
Bureau of Diplomatic Security remains properly resourced and 
ensuring the protection of U.S. personnel, as you talked about, 
and facilities, in the context of budget cuts to the State 
Department's budget that have been proposed?
    Mr. Ueland. Senator, thank you very much for that question. 
What I expect, if I have the privilege of being confirmed and 
working with the Assistant Secretary for Diplomatic Security, 
is to, every day, be reviewing our security posture and the 
support that we provide for security across all fronts at all 
our posts around the world, including seeking, in conversations 
with Congress, inside the executive branch, with the OMB, and 
others, that there be an appropriate amount of resources 
dedicated to security, and then expend it properly for security 
on behalf of our personnel. Security and safety will be one of 
my constant responsibilities that I will expend significant 
time focused on and advocating for appropriate resources in 
order to ensure that our Foreign Service Officers and our 
personnel deployed around the world are in facilities that are 
safe, are able to safely execute their duties, and have the 
security for themselves and, as appropriate, for their families 
and loved ones, is something that is going to be a critical 
calling that I will work to follow through on, if I have an 
opportunity to be confirmed.
    Senator Portman. I think that is important. And I was glad 
to hear you talk about it in your testimony. And, you know, 
we--again, the morale question came up earlier. I think that is 
one of the things that people are concerned about, is even 
their physical security. And knowing that you are behind them, 
I think, will be very important.
    You and I talked a lot about the Global Engagement Center 
when we met, in the context of this nomination, and I told you 
my concern about State Department not seeking the funding to be 
able to effectively push back against authoritarian regimes 
around the world who are using disinformation and propaganda 
more, meddling here in our own country, but also in fledgling 
democracies around the world. And you gave me your commitment, 
in those meetings, that you wanted to focus on that issue, as 
well. And I noted that Secretary Tillerson did ask for the 
funding from the Department of Defense recently that we had 
authorized here in this body, and I was really pleased to see 
that. And I appreciate Deputy Secretary Sullivan reaching out 
to me in the last few days, in fact, about this issue, and 
ensuring that, you know, they have a commitment to getting the 
GEC stood up properly, both with regard to counternarrative on 
terrorism, ISIS, but also with regard to pushing back on 
disinformation. Can you make a commitment today to us that you 
will indeed continue that focus of making sure that the Global 
Engagement Center works effectively to push back and provide 
adequate resources for that?
    Mr. Ueland. Senator, absolutely. To your point, we did have 
a good conversation on this. I believe the mission of the 
Global Engagement Center is critically important to advocating 
the United States point of view against both nonstate and state 
actor propaganda and agitation against our way of life and the 
values that we represent. So, no question that, if I have the 
privilege to be confirmed, be working to seek to, in any way 
that my portfolio interacts or supports the Global Engagement 
Center, in ensuring that we are robustly acting through the 
Global Engagement Center, as well as across a wide variety of 
platforms throughout the Government, on behalf of the 
expressions of our values, and pointing out some of the 
challenges that these other values being advocated for truly 
present to the world.
    Senator Portman. Well, thank you. My time is expired. I 
just--I know it is very important to this committee. Senator 
Murphy and I did have this legislation that is now in law, and 
we want to be sure it is properly implemented. Every day, there 
is a headline about some other aspect of disinformation. So, we 
appreciate your focus on that.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Mr. Ueland. Thank you, Senator.
    The Chairman.  Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you, Mr. Ueland, for being willing to be 
considered for this post, and for taking the time to meet with 
me and other members of this committee.
    I want to follow up on your last line of discussion with 
Senator Cardin, because I want to make sure I understood very 
clearly what you committed to.
    I am a member of the SFOPS Subcommittee of Appropriations, 
and so I voted for the 51.2 billion in funding for the State 
Department, which, as you know, is significantly more than the 
proposal submitted by the President and the administration. And 
I understood you to say that, if you are confirmed, that you 
will work to protect this budget and make sure that the 
expenditures are made as Congress directed. Did I understand 
that correctly?
    Mr. Ueland. Senator, in relation to the question--again, 
thank you very much for your time and our conversation--yes, if 
statute is brought into law, enacted and signed by the 
President, my responsibility--our Budget Office, Comptroller's 
Office responsibility--is to ensure that those monies do flow, 
as called for by statute. So, to the extent that the President, 
the administration, and the legislative branch have agreed upon 
appropriate funding, both at an overall level as well as what 
goes on in accounts and subaccounts, and the money is to flow, 
the money shall flow.
    Senator Shaheen. I think it is important to raise this, 
because there have been some suggestions and concerns raised 
about the administration using impoundment to actually not 
spend monies that have been appropriated. I know that, in our 
office, we have raised, with several departments within State 
government--or within Federal Government, concerns about money 
that had been appropriated and had not been spent and--in order 
to try and urge that spending. But, again, you are putting to 
rest concerns that, when you are at the State Department, that 
you will not use impoundment as a way to prevent the spending 
that has been directed by Congress from getting done. Do I 
understand you correctly?
    Mr. Ueland.Senator thank you for that question, as well.
    During the preparation process for this entire 
confirmation, an explanation of the responsibilities of the 
Deputy--I am sorry--Under Secretary of State for Management and 
all the bureaus and offices for which I would be responsible, 
no one has ever raised with me, inside the administration, 
anything in relation to impoundment. There is a statutory 
construct about impoundment, as we all know, in the Budget Act, 
which talks about two different ways monies can be looked at by 
an executive branch as it goes about evaluating whether or not, 
and how best, to move resources forward--funded resources 
forward. As well, every year, as you know, as a member of the 
Appropriations Committee, the Appropriations Committee and the 
executive branch figure out ways, at times, move resources 
around, pull monies back, reprioritize as it goes through the 
spending conversation, and again, jointly agree as to how 
monies should be spent. So, I am not aware of any calling, 
responsibility, or demand that I am going to be impounding 
money.
    Senator Shaheen. Thank you.
    Mr. Ueland. Last point, Senator, if I may. That sort of 
question, implementation of, might fall in my lane. Again, I 
have not been told any of that. But, the interpretation of the 
Constitution and the impoundment power and all that, that is 
not in the Under Secretary of State for Management's 
responsibilities.
    Senator Shaheen. It is my understanding that the Department 
of State is the only agency now within the Federal Government 
that has a self-imposed hiring freeze after the 
administration's freeze was rescinded. Is that your 
understanding? And do you think that is a sound personnel and 
management decision, given the number of crises we have around 
the world and the continued concern about morale within the 
Department?
    Mr. Ueland. Senator, thank you for that question.
    I am not aware of the unfolding of the freeze policy in 
relation to other departments and agencies. In relation to the 
Department of State, yes, the freeze does continue. The 
Secretary has a variety of powers to address the issue while 
this reorganization conversation continues internally. And the 
budget conversation, appropriations conversation for resources, 
will continue with the Congress. My understanding is, he has 
exercised that power in relation to a variety of circumstances 
that have been presented to him.
    And, in terms of staffing, appointments, nominations, and 
all that, I believe that the Secretary and the Department 
continues to work through recommendations for potential 
nominees, ultimately to the Senate and to this committee. Just 
sent a number of nominees to Congress last week, to the Senate 
last week. The Deputy Secretary of State addressed this issue 
at his townhall last month in the Department, saying that 
approximately 60 percent of confirmable positions either have a 
nominee, would have a nominee, or have individuals under 
consideration for them. So, the Department, as I understand it, 
its leadership, based on public reports, is focusing on working 
through the system and providing nominees to the Senate for 
advice and consent and review.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Senator Barrasso.
    Senator Barrasso. Well, thank you, Mr. Chairman.
    Congratulations, and I have great confidence in your 
ability to do this job, and I am delighted that the President 
has chosen to nominate you. Terrific.
    Mr. Ueland. Thank you, Senator.
    Senator Barrasso. You know, in Wyoming, we have a veteran 
memorial. It is located on F.E. Warren Air Force Base. It 
honors 48 U.S. soldiers that were massacred in the Philippines 
during the Philippine-American War. This memorial displays the 
bells that the Filipino insurgents used to signal the attack on 
our U.S. troops. Recently, the U.S. Ambassador to the 
Philippines publicly pledged to move the bells from this 
memorial to the Philippines. The--during the confirmation 
process for Secretary Tillerson--I had asked him about this, 
and he stated, ``The Bells of Balangiga are an important war 
memorial that holds real significance for many Americans, 
especially our veterans.'' Secretary Tillerson assured me that 
he would support an inclusive process with the U.S. Department 
of Defense to ensure that Congress is fully informed and the 
views of local communities and veterans are fully respected 
when evaluating the management of war memorials.
    So, last week, I sent a letter to the President, along with 
Senator Enzi and Representative Cheney, and to Secretary 
Tillerson, as well. And, Mr. Chairman, I ask unanimous consent 
that this letter to the President be included in the record.


    [The information referred to above is located at the end of 
this transcript on pages 615-16.]


    Senator Barrasso. So, we sent a letter to the President and 
to Secretary Tillerson raising concerns about the U.S. 
Ambassador to the Philippines pledging to dismantle the Wyoming 
War Memorial. In Wyoming, we have strong tradition of never 
forgetting the sacrifices of our brave men and women. So, the 
letter asks the President to direct the Department of Defense 
and the Department of State to cease any efforts to deconstruct 
existing war and veterans memorials.
    So, my question to you is, if confirmed, will you raise 
this issue with this member of our Diplomatic Corps and share 
with him the importance of protecting our Nation's veterans 
memorials?
    Mr. Ueland. Senator, thank you very much for the question.
    And this story is incredibly inspiring, and a very 
significant aspect to your point of our World War II history 
and the work of our soldiers during that conflict. I do pledge 
that, if I have the opportunity to serve as Under Secretary of 
Management, as confirmed--if confirmed, that I will do 
everything I am capable of to bring this information forward--I 
associate myself with the comments of the Secretary during his 
confirmation hearing on this matter--and provide all the 
appropriate information that the Under Secretary of State of 
Management can provide in relation to this, because it is an 
important issue--I think, not just for you, but, again, for 
veterans across our country.
    Senator Barrasso. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman.  Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, Mr. Ueland, congratulations on the nomination.
    Mr. Ueland. Thank you, sir.
    Senator Kaine. I want to ask you a couple of questions in 
the embassy security space. You talked about that as a key 
priority, should you be confirmed. You mentioned the 
construction of the facility in Virginia that is underway, and 
look forward to working on that with you. There was an 
Accountability Review Board that was done at the State 
Department in the aftermath of the loss of life at Benghazi, 
that horrible attack. There were 29 recommendations that were 
made that the State Department should follow, going forward, to 
reduce the chance of it happening again. There are three 
recommendations that are not yet closed out. Twenty-six have 
been closed out and implemented. The three that have not been 
are all dealing with embassy security issues: actual 
improvements to physical facilities, full training of the 
additional marine security guards called for in the ARB report. 
This will be a responsibility, as you indicate, that you will 
tackle, and I have two concerns. One, I am concerned about the 
budgetary issues that have been raised before, should there be 
a significant reduction in budgetary resources to State, as 
proposed in the President's budget, what that would do to the 
ability to deal with the embassy security questions. And 
second, there is an Assistant Secretary for Embassies--
Assistant Secretary for Security.
    Mr. Ueland. Yes, sir.
    Senator Kaine. As far as I know, there has not been a 
nomination forwarded to the Senate on that position. I wonder 
if you could address both the budgetary issues and your 
commitment to making sure we are spending appropriately on 
these security issues, and, second, do you have any idea or 
information about when the State Department is intending--I am 
sorry--when the administration is intending to forward us a 
nomination on the embassy security position?
    Mr. Ueland. Senator, thank you for the question, and I 
appreciate your raising it, very much.
    To your point, as I testified and in previous answers have 
indicated that I will be focusing a significant amount of time 
on security matters. And, as for resources, as discussed 
earlier, I expect that I will be spending significant amount of 
time understanding the need and advocating in behalf of 
appropriate resource levels, significant resource levels, on 
behalf of diplomatic security efforts for our 275 posts around 
the world.
    To your point, we have about 33 of those posts that are 
high-risk, high-threat. We have an internal validation process 
for our presence and reviewing where we are and our security 
needs as we go through a regular look at where we are deployed. 
And decisions about security are very important and flow 
through a variety of decisionmaking methodologies that are all 
part of the responsibility of the Under Secretary for 
Management. So, in addition to resources, ensuring that 
processes are going to be followed properly and aggressively 
are also going to be part of my work.
    In terms of the Acting Assistant Secretary, my 
understanding is, he has been at the Department of State in the 
Foreign Service since 1987, that he has served as the assistant 
to the Assistant Secretary of State prior, as well as running 
the HRHT operation in the past. So, I believe, based on what I 
have read, that I am very confident in the Assistant 
Secretary--Acting Assistant Secretary right now. But, I do know 
that--if I have the privilege to be confirmed, that I will be 
diving in to examine the leadership, but I have no information 
on where the administration stands, in terms of a potential 
nominee. I expect that, if confirmed, I will learn quite a bit 
very quickly.
    Senator Kaine. I would want to have a followup conversation 
about that. I appreciate what you have said about an--about the 
Acting. And I am glad you mentioned that, because sometimes, 
you know, we act as if a--if there is a--there has not been a 
nomination, it looks like nobody's doing the job. And we have 
plenty of Actings, and many of our Actings do very well. 
However, there is also a degree of uncertainty about an Acting. 
It sends a message, if you do not fill a position. You know, we 
had Acting Administrators of the Centers for Medicaid and 
Medicare Service for 6 and a half years. It is only the largest 
line item in the Federal budget. That sends a signal that 
Medicaid and Medicare was not that important. And, similarly, 
if there is not a nominee forwarded to the committee on this 
important security position, it kinds of sends--it sends a 
signal, in addition--the person doing the job as an Acting 
might be fine, but it sends a signal that it is not a priority, 
and it should be. I would love to follow up on that.
    Mr. Ueland. Yes, sir.
    Senator Kaine. When I tour, as a member of this committee, 
and I go to embassies abroad, I always sit down and have coffee 
with first- and second-tour FSOs. And I do not let the 
Ambassador come. And I ask them this question, ``You have been, 
you know, picked for this wonderful opportunity that is very, 
very hard to get. What is going to make you decide whether to 
make it a career or depart early?'' And I am always struck by 
how often the decision points are kind of management issues, 
like, ``I had to be intensely vetted for the security to get 
this job, but then to requisition a pencil, they treat me like 
I am a potential felon,'' you know, ``in order to get an office 
supply.'' And so, I may want to come and just offer some 
insights on some of these management issues that affect the 
morale of people who are doing great jobs or--around the world. 
And I would look forward to that discussion.
    Mr. Ueland. Senator, I would welcome that very much. And 
the internal process is--for those of you who have reviewed the 
June report, points to constant examples, anecdotally, along 
those lines. I would love to follow up and be part of a 
continuing partnership on this matter, going forward.
    Senator Kaine. All right. Thanks so much.
    Thanks, Mr. Chairman.
    Mr. Ueland. Thanks, Senator.
    The Chairman.  Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Congratulations on your nomination. The Chairman referenced 
the morale issue at the Department today. And I think it is 
difficult to overestimate a morale crisis at the Department of 
State today. I think we are at the lowest point in the modern 
history of the State Department. We have had scores of senior 
diplomats leave over the last 6 months. People that come back 
from visiting our embassies in the field tell me that there are 
even more mid-level and junior staffers who are planning on 
leaving. And it is not hard to understand why. They perceive 
this administration and this Secretary of State to be openly 
advocating for a fairly dramatic winnowing of authorities at 
the Department of State, a lack of interest in democracy 
promotion and human rights advancement. But, it is also because 
of some very specific personnel policies that have been applied 
to the Department of State with an enthusiasm that does not 
exist in other departments. The hiring freeze, for instance, 
which had, at first, applied to almost all government agencies, 
now still specifically targets the State Department. The freeze 
on promotions and the freeze on lateral moves within the 
Department is sending a pretty clear signal to people who are 
there that they maybe should look other places rather than make 
that long-term career decision that Senator Kaine referenced.
    And so, you are going to be inheriting a responsibility for 
staff management at a time when lots of your most important and 
most valuable staff are getting a signal that they should maybe 
find a career somewhere else.
    In your preparation for this job and for this hearing, can 
you tell us what you have learned about the plans to continue 
the hiring freeze, the freeze on promotions, and the freeze on 
lateral moves? Can you give us any idea for when those 
practices will end? Because if they do not end soon, I fear 
that you are going to have a real vacuum of experienced 
personnel on your hands, sooner rather than later.
    Mr. Ueland. Senator, thank you very much for that question.
    In my preparation for the confirmation process, my 
nomination, and in preparation for this hearing, I have been 
given no explanation, nor has there any conversation, about a 
plan in relation to personnel. So, if I have the privilege to 
be confirmed, learning what, if any, plan might be in relation 
to personnel will be part of the core calling. Clearly, in the 
Under Secretary of State for Management's portfolio, human 
resources is a significant aspect of the responsibility that I 
have and the work that we engage in.
    As I understand things, though, more generally, Senator, 
from the Secretary and the Deputy Secretary as they have worked 
through this reorganization process, one of things they have 
emphasized repeatedly is that there are no predetermined 
outcomes. And I think they have been true to that as they go 
about evaluating what employees point out to them as potential 
opportunities for more successfully prosecuting our foreign 
policy here that--around the world on behalf of the United 
States. As I understand it, they have been very clear, 
repeatedly. They have an open mind about how better to do the 
job of representing our values and our democracy around the 
world. And so, I take that declaration at its word. And if I am 
confirmed, I expect not only to learn more about, and 
participate in, the reorganization plan, but then to very 
robustly engage with Congress to explain the thinking of the 
Department's leadership, its goals, its objectives, and be in 
cooperation with this committee, as well as its peer committee 
in the House, in relation to the authorization bill, 
appropriations bill, as it works through the process.
    So, I expect that there is going to be a very engaged back-
and-forth.
    Senator Murphy. I think you need to explain it to us, but, 
I think, more importantly, you are going to need to explain it 
to the people that work for you, who right now are mystified as 
to why the State Department seems targeted by these policies in 
a way that almost no other agency is targeted by them.
    Let me ask one more question.
    Mr. Ueland. Yes, sir.
    Senator Murphy. You are the third senior-level nominee to 
tell this committee that the State Department is going to 
consult with Congress on the reorganization. We have gotten 
plenty of promises on consultation, and no consultation. We 
just passed a State Department appropriations bill in which we 
just simply guessed at what the State Department would look 
like. The Deputy Secretary has still not submitted written 
answers to questions, to this committee, relevant to his 
confirmation hearing.
    So, put a little bit more flesh on the bones. When you say 
that you are going to consult with Congress, you are saying 
they same thing that everybody else has, and yet no one has 
consulted with us. So, what do you mean by that? What is the 
form of the consultation going to take? When can we expect it? 
Will we see a plan before it is announced? Will we not see a 
plan before it is announced? Give us a little bit of detail.
    Mr. Ueland. Thank you very much for the question, Senator.
    And at least as I interpret my obligation for consultation, 
in relation to your question, is that I would be expending a 
fair amount of shoe leather and time coming to the Hill to 
explain, as I mentioned earlier, the rationale, the ideas, the 
potentialities, the objectives, the goals of whatever 
reorganization recommendations that the Secretary and the 
Deputy Secretary, as a result of all this feedback, ultimately 
provide. So, in any way that I am able to, at the counsel and 
direction of the Secretary, and in the counsel of the Assistant 
Secretary for Legislative Affairs, coming to the Hill to 
explain where matters stand, where the leadership is intending 
to go, and what role, if any, I play in that, that is the flesh 
on the bones of my commitment.
    Senator Murphy. Will we see it before it is implemented?
    Mr. Ueland. Senator, I have not been told much about any of 
that. If I can find an answer through this process, I am happy 
to provide that to you.
    Senator Murphy. Thank you, Senator.
    The Chairman.  Thank you.
    Senator Merkley.
    Senator Merkley. Well, thank you, Mr. Chairman.
    And appreciate your bringing up cybersecurity in your 
initial remarks. Certainly, we have been very concerned about 
the--both the commercial hacking, the governmental hacking that 
has occurred by foreign nations and foreign forces, including 
Russia and North Korea. Even the NSA has been hacked. I was 
surprised, therefore, that the Special Representative for 
Cybersecurity was on the list to be eliminated by the State 
Department. Why would that be eliminated? And, when you say 
that you are concerned about cybersecurity, how does that 
translate to a management initiative?
    Mr. Ueland. Thank you very much for the question, Senator.
    In relation to the elimination of the cybersecurity, I am 
not--been briefed on any of that, but I am happy, again, 
through this process, to try to elicit what information I can 
in relation to that.
    For the responsibilities that the Under Secretary of State 
for Management has, including information technology, there are 
a variety of initiatives already underway in our information 
technology area to address questions of cybersecurity, 
including a risk officer being identified, a joint operating 
committee being established, and more resources being put 
towards the question of cybersecurity, both as nominal dollars 
as well as a percentage of our IT spend. I expect that, if I 
have the opportunity to be confirmed and working with the CIO 
to not only reinforce those efforts, but to elicit from them 
additional recommendations to continue to harden and defend the 
Department, which suffers millions of efforts every year on the 
cyber front to attack and penetrate our defenses, in an effort 
to enhance the stability and protection of the IT platform for 
all the employees, we have about--a little over a hundred-
thousand points of contact, I guess is the best way to put it, 
computers hooked up to our network. And so, ensuring that all 
our employees are able to interact with each other on a 
platform that is stable and secure is going to be something 
that I--as I mentioned in my prepared statement, I want to 
spend a fair amount of time on.
    Finally, Senator, there is the potentiality of partnering 
with the private sector to elicit best practices and work from 
them that might benefit the Department of State and across the 
Government throughout all our platforms. Hopefully, there is 
the ability to also seek out and work in cooperation with the 
private sector, as well, to assist in this effort.
    So, I look forward to, if I am confirmed, diving in on 
this, as well, inside the Department of State.
    Senator Merkley. Well, I certainly encourage that, because 
a hundred-thousand points of contact is hundred point--a 
hundred-thousand points of vulnerability, and privacy, 
confidentiality is so important to diplomatic conversations.
    My colleague mentioned the freeze on personnel, the--and 
you and I talked about the hiring of eligible family members, 
educational fellowships, also of Civil Service promotions. And 
as you answered him, I did not hear your opinion. What opinion 
are you bringing to this? Is it time to end this freeze in the 
State Department?
    Mr. Ueland. Senator, thank you very much for that question, 
as well.
    In terms of my opinion, I do not have a fully formed view 
on the issue. I am aware of a lot of feedback from employees, 
to your point, expressed by members through a variety of 
private meetings, as well as feedback that I have read and 
media reports in relation to this. And so, if I have the 
opportunity to be confirmed, I expect that I will be learning 
more about why matters stand as they currently do, and 
potential plans for addressing this in the future. Again, to my 
earlier conversation, in my conversation with you, the 
Secretary does have ability to work through specific issues on 
personnel, even in relation to the freeze, has done so, and I 
expect would continue to, but, if I am confirmed, be diving 
into this to examine where matters stand, to see if I have an 
independent opinion and what the opinion of the Department is 
that ultimately, in conversation with you, working through this 
matter with the committee and the Appropriations Committee as 
well.
    Senator Merkley. These kinds of, kind of, basic pieces have 
a huge impact on the retention of talent, and morale, and the 
capability of the Department.
    But, moving on to two specific questions, in the half-
minute left. Do you support transferring the consular functions 
out of the State Department to Homeland Security? And, 
similarly, do you support transferring the Bureau of 
Population, Refugees, and Migration to Homeland Security?
    Mr. Ueland. I do not, sir. And I am not aware, during the 
preparation of this process, of any plans along those lines. I 
have read a lot of media reports, a lot of speculation, but 
nobody has told me that that is a plan, going forward.
    Senator Merkley. When you say ``I do not,'' you would like 
to see those stay in the State Department.
    Mr. Ueland. Yes, sir. I think they are essential aspects of 
our foreign policy and our diplomacy. Those are some of the 
most significant interactions foreign nationals have with our 
United States Government. And it seems to me, at least as an 
undereducated amateur from the outside, that it is a natural 
marriage that they reside in the Department of State and that 
our consular officers and our Bureau of Consular Affairs 
conduct this work in conjunction with and cooperation with the 
Department of Homeland Security, Department of Justice, our 
intelligence community, and law enforcement officials. Because, 
of course, visa decisions are also national security decisions, 
safety on behalf of the American people, but the Department of 
State, to me at least, seems to be the right place for these 
sorts of conversations to occur every day.
    Senator Merkley. I am delighted to hear that. I certainly 
support keeping them in the State Department. Thank you.
    Mr. Ueland. Thank you.
    The Chairman.  Senator Coons.
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Cardin.
    Thank you, Mr. Ueland, for your service. Congratulations on 
your nomination. I regret my schedule did not allow us time to 
meet individually before this, but I hope we get a chance to 
work more closely together, in the event you are confirmed.
    And I am also appreciative that someone with your 
seasoning, your service here in the Senate will be in a fairly 
senior role in the State Department, if confirmed, because, as 
you have heard from a whole series of my colleagues, there is 
real concern about communication with Congress about the 
redesign. So, if confirmed, you will have a central role in the 
implementation of the redesign of the State Department, and I 
just wanted to drill down a number of the broader questions I 
wanted to ask about consultation with the FSO community and 
morale have been asked by colleagues, and I agree. I have 
recently visited four embassies in West Africa, and heard many 
of the same themes. Earlier in the year, I was in South Asia. I 
heard many of the same themes.
    So, let me ask you about two specific programs. In meetings 
with Foreign Service Officers, I have heard repeatedly about 
problems created by the freeze and eligible family members 
being hired. Often, Foreign Service Officers have spouses with 
advanced degrees or with a deep experience in business or 
management, or in operations, or in State, who could be 
assisting our efforts overseas, but the State Department chose 
to freeze the program as part of the broader freeze Senator 
Murphy was referencing. If confirmed, will you work with this 
committee to explore ways to lift the hiring freeze for 
eligible family members and to analyze and understand the value 
that eligible family members of Foreign Service Officers posted 
overseas have for our embassies, not just for the work/life 
balance and morale of Foreign Service Officers, but for the 
reach and effectiveness of the foreign post?
    Mr. Ueland. Senator, thank you very much for that question.
    And, to your point, the EFM program appears to be an 
extremely valuable addition to all the work that our Foreign 
Service Officers do around the world. To the earlier 
conversation with other Senators in relation to the Secretary's 
discretion in reacting to the freeze when it comes to the EFM 
program, many waivers have been granted because of the value 
and importance of this program. So, I do expect that, if I have 
the opportunity to serve, after confirmation, to be engaged in 
a very good effort to fully understand both the EFM as well as 
the hiring freeze, potential plans, if any, that will be 
briefed to me if I have the privilege of serving, and then 
coming and discussing with Congress the plan and approach in 
relation to the EFM program.
    Senator Coons. Thank you. Let me ask one other that is in 
the same vein about President Management Fellows. Some of our 
most talented staff have come from the ranks of former 
Presidential Management Fellows. And I understand the State 
Department suspended hiring from the finalist pool, even to the 
extent of freezing the onboarding process for 35 Fellows who 
had already received appointments for positions within the 
Department. Do you think the Department should be honoring its 
agreements with these highly skilled and distinguished Fellows? 
And, if confirmed, would you work to do so? And, more 
importantly, frankly, will you commit to working with this 
committee to make sure that the State Department is as aligned 
as successfully as possible with recruiting and retaining high-
skilled and high-performance staff?
    Mr. Ueland. Well, thank you for that question, as well.
    And in relation to PMFs, if confirmed, to your point, a 
portfolio underneath the Under Secretary of Management does 
have interaction with this program. And I expect that I will 
have the opportunity to understand fully matters as they stand, 
and, in relation to the earlier question as well, what, if any, 
plans for the future are.
    To your point more broadly about recruiting talent, as you 
know, the Secretary spoke to this issue, in very broad terms, 
last month, where he observed the need for the Department to 
look far and wide for extremely talented and highly capable 
individuals to come to the Department of State and serve on 
behalf of our foreign policy. So, I expect that, again, my 
portfolio will work very hard to support that goal and that 
objective, and I expect, as well, that the Department, under 
the Secretary, will be working with Congress for ways--to find 
ways, I should say, to support that work that he set out for 
all of us to do inside the Department of State.
    Senator Coons. Well, thank you, Mr. Ueland. I just--I would 
close by imparting to you, as my colleague Chris Murphy did, I 
think there are five members of this committee that are also on 
the Appropriations Subcommittee for State and Foreign Ops. And 
it is September. I understand there is a very full menu of 
foreign policy challenges, even crises, around the world that 
demand the full engagement of the senior ranks of the State 
Department. But, I was deeply frustrated. We concluded our 
appropriations process without really having a sense of the 
direction of this redesign. So, I hope you will convey a sense 
of urgency about both the consultation and the forward 
progress. I hope to be a good partner in pursuing a balanced 
and appropriate and a responsible effort at trimming some of 
the costs but retaining the vast majority of the personnel and 
the programs of the State Department. At a time when we need 
effective diplomacy more than ever, I was struck at how long it 
has taken to get this process underway. And my hunch is that 
your confirmation might well contribute to advancing it, and 
certainly to advancing communications with the Senate.
    Thank you, Mr. Chairman, for your patience.
    Thank you, Mr. Ueland.
    Mr. Ueland. Thank you, Senator.
    The Chairman.  Thank you.
    With that, we are going to move to the second panel. The 
record will remain open for questions until the close of 
business on Thursday. If you could promptly respond to those, 
it would be greatly appreciated. Thank you for willingness to 
serve in this capacity.
    Senator Cardin. Mr. Chairman, if I could, just for the 
record. I--diversity in the Department is extremely important, 
not--for many, many reasons, not the least of which is our 
effectiveness in this globally, so I will be asking you some 
questions for the record as it relates to the Pinkering and 
Rangel Fellows and as to your commitment on maintaining and 
expanding the diversity within the Department.
    Mr. Ueland. Thank you, Senator. I will look forward to 
answering any and all written questions.
    Thank you, Mr. Chairman.
    The Chairman.  Absolutely.
    So, the second panel, if you would come up, we would 
appreciate it.
    Okay. Today on the second panel, we have The Honorable John 
Bass to be Ambassador Afghanistan. Mr. Bass is a career member 
of the Senior Foreign Service, a Class of Minister-Counselor, 
has served in the--as an American diplomat since 1988. He is 
currently Ambassador to the Republic of Turkey, a position he 
has held since 2014. He has also served as Ambassador to the 
Republic of Georgia from 2009 to 2012.
    We thank you for your willingness to--as we discussed 
yesterday, to serve in this prospective capacity. And we thank 
you for being here today.
    Next, we have Mr. Justin Siberell. Is that pronounced 
correctly?
    Mr. Siberell. Yes, it is.
    The Chairman:--to be Ambassador to Bahrain. Mr. Siberell, a 
career member of the Senior Foreign Service, Class of Minister-
Counselor, has served as an American diplomat since 1993. He 
has served as the Acting Coordinator and the Principal Deputy 
Coordinator for Counterterrorism at the State Department. He 
has also served at six postings in the Middle East, and speaks 
Arabic and Spanish.
    Thank you for your willingness to serve.
    And lastly, we have Mr. Steven Dowd to be U.S. Director of 
the African Development Bank. Mr. Dowd co-founded Ag Source, 
LLC, a global agricultural logistics, transportation, and 
finance company. His prior experience also includes overseeing 
food aid, operations, and leading port infrastructure projects 
in Africa.
    Thank you for doing that, and for your willingness to 
serve.
    We will now turn to the nominees. And if you--each of you 
could keep your comments to 5 minutes or so, any written 
documents you want to have entered into the record, we will do 
so, without objection.
    And, with that, Ambassador Bass.

STATEMENT OF HON. JOHN R. BASS, OF NEW YORK, A CAREER MEMBER OF 
   THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, 
 NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF 
    THE UNITED STATES OF AMERICA TO THE ISLAMIC REPUBLIC OF 
                          AFGHANISTAN

    Ambassador Bass. Thank you, Mr. Chairman, Ranking Member 
Cardin, members of the committee. It is an honor to appear 
before you today as the President's nominee to be the next U.S. 
Ambassador to the Islamic Republic of Afghanistan. It would be 
an honor to again represent our great Nation overseas, and I 
want to thank the President and Secretary Tillerson for the 
opportunity to do so. I look forward, if confirmed, to working 
closely with all of you to advance our interests in 
Afghanistan, and I will welcome frequent opportunities, as I 
have during my past two ambassadorships, to consult with you.
    I am grateful to be joined today by my wife, Holly, a 
career diplomat who also will serve in Kabul, as well as my 
sister, Kristin Bass. And I would like to also recognize and 
thank some colleagues, some of who are here today, some of who 
are absent, who have become family during service together in 
challenging locations.
    I have spent much of the past decade focused on curbing 
threats that terrorists pose to our country and our allies, and 
I have had the privilege to support my colleagues in Kabul, 
through diplomacy, to broaden our coalition and sustain our 
coalition there. And, if confirmed, I will focus on achieving 
the results we all seek in Afghanistan: a political settlement 
and sufficient government capacity to prevent its use anew as a 
platform from which terrorists can strike the homeland.
    I know many of you, and many of our fellow Americans, are 
questioning why the United States must continue to devote so 
many resources to this problem and to this country. And I 
understand why they ask how it is we can afford this when we 
have such pressing needs at home. I believe, however, that we 
cannot afford not to sustain our efforts in Afghanistan. We do 
not have to guess at the consequences of choosing otherwise. We 
experienced them 16 years ago; and, over the past 3 years, 
after ISIS set up shop in under- or ungoverned spaces in Syria 
and Iraq, we have experienced the consequences there, as well. 
And, as the President has made clear, we cannot afford to shy 
away from tackling the challenges that these terrorist 
organizations pose to us, head-on.
    I am not naive, obviously, 16 years into this, about the 
scale and complexity of the challenges we face. Fortunately, we 
have a bit more to work with than in the past. We have a 
government that wants our help, increasingly listens to our 
advice, and is making some progress building a government that 
can provide security to most Afghans. It sounds like a low bar, 
but if you think about where Afghans started 16 years ago, they 
have made some important strides forward in some key areas, 
including health and education. It is a different country 
today, and, importantly, President Ghani, Chief Executive 
Abdullah, and the Government are starting to make some 
important progress curbing corruption, I think, having made 
more significant progress in this area in the past year than in 
the previous 15 years combined.
    In seeking to fulfill my mandate, I will follow the new 
strategy approved by the President. The goal here is a 
sustainable political outcome that prevents terrorists from 
using Afghanistan as a safe haven. We have to make clear to the 
Taliban that it cannot outlast us on the battlefield, and that 
the only path forward for them is through a negotiated 
political settlement.
    As the President emphasized, our strategy requires a whole-
of-government effort. Diplomacy and focused development efforts 
will be instrumental to success. And a key element of our 
diplomacy, obviously, focuses beyond Afghanistan's borders. And 
I can assure you that, if confirmed, I will work closely with 
my colleague, Ambassador Hale, in Islamabad to improve 
Afghanistan and Pakistan's bilateral relationship, which fuels 
some of the challenges we face in Afghanistan.
    Now, obviously, success cannot, will not, be driven 
primarily by the efforts and sacrifices of Americans. We will 
sustain the support of our allies and partners. In some cases, 
we will be asking them to do more as we go forward. I think it 
is important to remember and to acknowledge that our approach 
should not be misunderstood as a desire to occupy or remain in 
Afghanistan against the will of its people. We respect Afghans' 
fierce independence. We do not seek a permanent military base 
or bases there, or a presence in Afghanistan that would 
threaten its neighbors. And I think that is an important piece 
of the calculation as we continue to reinforce the diplomatic 
efforts with other neighbors.
    It is clear to us that the Afghan Government has other 
large obligations to fulfill. We cannot build Afghanistan for 
Afghans. They have to do it themselves. But, we are certainly 
going to work with them and encourage reforms that enables 
Afghanistan to be more self-sufficient over time. Government 
welcomes this approach. We saw, after the strategy was 
announced, that Chief Executive Abdullah declared that, 
``Nation-building is our job.'' And I will be working closely, 
if confirmed, with him, with President Ghani, to help them 
undertake that important work.
    Making progress has been hard. It will undoubtedly continue 
to be hard. But, I believe it is worth the effort and the 
investments, because the alternatives all lead to worst 
outcomes for the United States.
    And I would just note, in closing, one of the first 
priorities of every U.S. Ambassador today is to think first of 
the safety and security of the people who work for them, who 
serve beside them. Determining how best to achieve our key 
objectives, while also protecting our people, will be foremost 
in my mind every day. And, if confirmed, I will ensure that I 
do everything possible to spend whatever level of funding we 
have for Afghanistan wisely.
    In closing, I want to thank this committee for its support 
to the vital work of the U.S. mission in Afghanistan. And, as I 
noted at the outset, if confirmed, I would welcome a candid, 
ongoing dialogue with you about the challenges and 
opportunities we face.
    Thank you again very much for the opportunity to appear 
before, and I look forward to your questions.
    [Ambassador Bass's prepared statement follows:]


                   Prepared Statement of John R. Bass

    Mr. Chairman, Senator Cardin, members of the committee--thank you 
for the opportunity to appear before you today as the President's 
nominee to be the next U.S. Ambassador to the Islamic Republic of 
Afghanistan. It would be an honor to again represent our great nation 
overseas, and I want to thank the President and Secretary Tillerson for 
the opportunity to do so. I look forward, if confirmed, to working 
closely with you to advance America's interests in Afghanistan. I will 
welcome frequent opportunities to consult with you.
    I am grateful to be joined today by my wife Holly, a career 
diplomat who also will serve in Kabul, and my sister, Kristin Bass. I 
would like to recognize and thank colleagues here today who became 
family during our service together in Baghdad and other challenging 
locations. All of us who serve in harm's way can only succeed with the 
support of our family and friends.
    During a career devoted to serving the nation, I have spent much of 
the past decade focused on curbing threats terrorists pose to our 
country and allies. I have supported through diplomacy our efforts in 
Afghanistan. As U.S. Ambassador to Turkey and Georgia, I mobilized and 
sustained additional military and financial contributions to support 
the International Security Assistance Force and its successor. If 
confirmed, I expect to apply extensive experience leveraging our 
bilateral and multilateral partnerships to achieve the results we all 
seek in Afghanistan--a political settlement and sufficient government 
capacity to prevent its use anew as a platform from which terrorists 
can strike our Homeland.
    I know many of you, and many of our fellow Americans, are 
questioning why the United States must continue to devote so many 
resources to supporting the people and Government of Afghanistan. I 
understand why they ask: can we afford these big expenditures at a time 
when we have so many pressing needs here at home? I understand why many 
Americans carry these sentiments.
    I believe the short answer, though, is that we cannot afford not to 
sustain our efforts in Afghanistan. As a nation, we cannot afford the 
increased risks and peril that would come from a wholesale departure or 
rapid reduction in our footprint in Afghanistan.
    We don't have to guess at the consequences from that policy choice. 
We experienced those consequences 16 years ago. And on a smaller but no 
less lethal scale, we have experienced the consequences that followed 
when ISIS set up shop in ungoverned spaces in Syria and Iraq, plotting, 
directing, and inspiring terrorist attacks against the United States 
and many of our friends and allies. We also know ISIS has used these 
spaces to conduct research on how to conduct mass casualty attacks 
using chemical weapons and to evade detection equipment--just as an al-
Qai'da affiliate did in Yemen seven years ago.
    As the President made clear in his address to the nation on August 
21, we cannot--and will not--shy away from tackling these challenges 
head-on. The security and safety of our homeland and our fellow 
citizens demands it.
    I'm not naive about the scale and complexity of the challenges we 
and our allies face in supporting the Afghan people and their 
government. Fortunately, we have more to work with now than 10 or 5 
years ago--starting with a government, led by President Ghani and Chief 
Executive Abdullah, that wants our help; increasingly listens to our 
advice; and is making progress building a reasonably effective 
government that can provide security and basic functions for most 
Afghans. That sounds like a low bar and modest results for our efforts. 
But if you think about where Afghans started 16 years ago, they have 
made important strides forward. In many key areas--health, education, 
access to news and information, governance--Afghanistan today is a 
different country. We have real achievements to build on. President 
Ghani and his government have made more progress curbing corruption in 
the past year than in the previous 15 years combined.
    In seeking to fulfill my mandate, I will follow the new strategy 
approved by the President last month. The strategy accounts for both 
enduring challenges and new factors in Afghanistan and across South 
Asia. It directs us to tackle the root causes of the enduring conflict 
in Afghanistan--which include the safe havens the Taliban continues to 
enjoy in Pakistan, and the support it at times receives from other 
neighboring states--rather than simply treating the symptoms.
    The goal of the new strategy is a sustainable political outcome 
that prevents the reestablishment of terrorist safe havens in 
Afghanistan. We will make clear to the Taliban that it cannot win or 
outlast us on the battlefield; the only path to peace and political 
legitimacy is through a negotiated political settlement. As you have 
heard in briefings on the new strategy, our support for the Afghan 
Government's efforts to combat Taliban violence and intimidation and 
resolve the conflict will be dictated by conditions on the ground--not 
by abstract deadlines. Through our actions, we will demonstrate to the 
Taliban that it cannot wait us out. We are signaling support to the 
Afghan public and the entire region that the United States is 
determined to create the conditions that enable a political settlement. 
Those settlement talks, if and when they come, must remain an Afghan-
owned, Afghan-led process.
    As the President emphasized, this strategy requires a whole-of-
government effort. Diplomacy and focused efforts by our development 
professionals are instrumental to success. A key element of our 
diplomacy focuses beyond Afghanistan's borders. If confirmed, my first 
regional engagement priority, as directed by Washington, will be to 
work closely with Ambassador Hale in Islamabad to encourage and support 
improvements in Afghanistan and Pakistan's bilateral relationship. I 
intend to supplement this effort with equally focused work with my 
fellow ambassadors to ensure key regional countries with a stake in the 
region's stability--including India, Russia and China--are doing 
everything possible to achieve that shared objective. We must address 
and prevent the hedging among some regional actors that has empowered 
the Taliban and lengthened the conflict.
    Success cannot--and will not--be driven primarily by the efforts 
and sacrifices of American soldiers, diplomats and taxpayers. There is 
a broad international military coalition led by NATO and a community of 
donor nations that have been essential partners in our common effort to 
stabilize Afghanistan. We will sustain the support from these partners 
and in many cases will look to them to do more.
    This sustained commitment should in no way be misunderstood as a 
desire by the United States or our allies to occupy or remain in 
Afghanistan against the will of its people. We respect Afghans' fierce 
independence, which is reminiscent of Americans'. We do not seek any 
permanent military bases in their country--or a presence that would 
threaten Afghanistan's neighbors.
    Success will depend fundamentally on the continued bravery and 
sacrifices of the Afghan security forces, and improved effectiveness of 
the national government. If confirmed, I will work closely with General 
Nicholson and the Pentagon's leadership to help the relevant Afghan 
ministries provide the logistical and materiel support essential to the 
success of their troops in the field.
    The Afghan Government has large obligations to fulfill as well. As 
the President made clear, our commitment to Afghanistan does not mean 
we are in the business of nation-building. The Afghans must build their 
own nation. We cannot do it for them. But we will work with them to 
encourage the kinds of reforms that will enable Afghanistan to be more 
self-sufficient and less reliant on donor assistance over time. The 
Afghan Government welcomes this approach. Chief Executive Abdullah has 
recently declared: ``Nation building is our job.''
    On August 23, two days after the President's address to the nation, 
President Ghani and Chief Executive Abdullah joined our Charge and 
General Nicholson to launch a new set of initiatives--the Kabul 
Compact. This compact sets benchmarks for reforms, including anti-
corruption reforms, across the Government. The Afghan Government has 
asked us to hold them accountable to these commitments; if confirmed, I 
will lead our efforts to do so. Our support for their reforms will help 
bolster the legitimacy of the Afghan Government. It will make their 
security forces more effective.
    Another critical area for reform involves steps to improve the 
electoral process, avoid the conflict and discord we saw in the 2014 
presidential election, and increase the legitimacy of the Government in 
the eyes of its citizens. Next year's parliamentary elections will be 
an important test of the Afghan Government's reform efforts and a 
bellweather for the presidential election in 2019. In addition to these 
reforms, we will continue to support efforts to ensure the ability of 
women to participate in the electoral process, both as voters and as 
candidates.
    We also will continue to support the Afghan Government's efforts to 
continue to grow the licit economy and increase public revenues. As 
with reform and governance, this is properly the responsibility of the 
Afghan Government, not the American taxpayer. As it focuses on creating 
the legal framework and conditions to attract additional foreign 
investors and partners to develop the country's enormous resource 
potential, I will ensure we support American companies who see those 
opportunities--as we do in embassies around the world.
    Making progress has been hard. It will continue to be hard. That 
does not mean it is not worth the effort--because all of the 
alternatives lead to worse outcomes for the United States.
    The perilous times in which we live demand that every U.S, 
Ambassador think first of the safety and security of their people. That 
has been true for me over three difficult, dangerous years in Turkey, 
and it will be especially true in Afghanistan. Determining how best to 
achieve our key objectives while also protecting our people will be 
foremost in my mind, every day, if I am confirmed.
    Like my fellow diplomats, I am also a taxpayer, and wasted 
resources frustrate me. If confirmed, I will do everything possible to 
ensure that the funds we spend in Afghanistan are used effectively and 
transparently.
    In closing, I want to thank this committee for the support it has 
provided, and continues to provide, for the vital work of the U.S. 
Mission in Afghanistan. If confirmed, I would welcome a candid, ongoing 
dialogue with you about the challenges and opportunities we face. Thank 
you, Mr. Chairman and members of the committee. I look forward to your 
questions.


    The Chairman.  Thank you very much.
    Mr. Siberell.

   STATEMENT OF JUSTIN HICKS SIBERELL, OF MARYLAND, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
     COUNSELOR, NOMINEE TO BE AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE KINGDOM 
                           OF BAHRAIN

    Mr. Siberell. Chairman Corker, Ranking Member Cardin, 
members of the committee, thank you for the opportunity to 
appear before you today as President Trump's nominee to be the 
United States Ambassador to the Kingdom of Bahrain.
    I am extremely grateful to the President and to Secretary 
Tillerson for the confidence they have shown in me to this 
nomination. If confirmed, I look forward to working closely 
with the Congress and with this committee to advance our 
Nation's vital interests with Bahrain.
    I am privileged to be joined today by my family: my wife, 
Arnavaz, our son, Samuel, and daughter, Emmeline. Our youngest 
son, Benjamin, is in school today. Ours is a true Foreign 
Service family, with each of our children born during one of 
our assignments in the field: Sam in Tunisia, Emmie in Jordan, 
and Ben in the United Arab Emirates.
    Mr. Chairman, the United States and Bahrain share a 
longstanding partnership based on common interests in regional 
security and the friendship of our two peoples. Since the 
1940s, Bahrain has hosted the United States Navy, and is 
currently home to thousands of Americans attached to the U.S. 
Naval Central Command and the U.S. Fifth Fleet. The operational 
and logistical support that the Kingdom provides our military 
is essential to the success of our campaign against ISIS, and 
enables our Navy to lead a 31-country international coalition 
that counters piracy, drug trafficking, and terrorism across 2 
and a half million square miles of ocean and seas.
    The United States works closely with the Bahrain Defense 
Force to ensure Bahrain has the tools and capabilities to 
defend against external aggression in strength and cooperation 
with U.S. and other allied regional militaries.
    Mr. Chairman, as you are aware, the administration recently 
notified the Congress of the approval of a number of possible 
defense sales that will address critical needs in the Bahrain 
Defense Force's air, land, and naval capabilities, including 
the sale of new F-16 aircraft and upgrades to previously 
purchased F-16s. These new military sales will provide Bahrain 
with reliable capability and increased interoperability with 
U.S. forces.
    I look forward to the close cooperation with colleagues at 
the Department of Defense to continue to support Bahrain's 
armed forces to address shared threats. In this regard, we are 
committed to working together with Bahrain to ensure it is able 
to counter persistent threats from Iran, including Iran's 
training and supply of lethal aid to individuals and groups 
targeting the Government and security forces of Bahrain.
    Success in confronting shared threats in the Gulf region 
rests, in large part, on the commitment of our close partners 
to work together towards inclusive and mutually supportive 
security arrangements. It is for this reason that the United 
States continues to encourage a rapid resolution to the ongoing 
dispute among the GCC states. If confirmed, I will work to 
support the efforts of Secretary Tillerson to assist the 
parties in resolving their differences.
    Enhancing our security cooperation with Bahrain does not 
diminish the enduring emphasis we place on human rights issues. 
Indeed, our counterterrorism and military cooperation with 
Bahrain is paired with a clear understanding that Bahrain's own 
long-term stability and security depend on it achieving 
political reconciliation and upholding its commitments to 
universal human rights.
    We continue to be concerned with government actions against 
nonviolent political and human rights actors, and will continue 
to urge the Government of Bahrain to take steps to ensure 
inclusive elections in 2018 and to advance reform efforts for 
the benefit of Bahrain's long-term security and our mutual 
interests in regional stability. If confirmed, I will work to 
ensure that we continue to have an open and honest dialogue 
with Bahrain on the full range of issues affecting our 
bilateral relationship, including human rights.
    Increasing American exports and jobs for the American 
people is a top priority for me. The United States and Bahrain 
enjoy a strong economic partnership highlighted by the U.S.-
Bahrain Free Trade Agreement. Since that agreement entered into 
force in 2006, bilateral U.S.-Bahrain trade has more than 
doubled, to $1.7 billion annually. More than 180 U.S. companies 
do business in Bahrain, a number I am committed to grow, if 
given the opportunity.
    Bahrain deserves some praise for its efforts to end human 
trafficking within its own borders by developing a national 
referral mechanism, promoting a national anti-trafficking 
strategy, investigating potential trafficking cases, and taking 
steps to amend elements of the sponsorship system that 
increases workers' vulnerability to forced labor and debt 
bondage. There is more that can be done, as is indicated in the 
State Department's Annual Trafficking-in-Persons Report, 
including proactive identification of potential forced-labor 
victims and increased prosecutions of forced-labor crimes. This 
issue is very important to me and to this administration, as I 
know it is to this committee.
    Advancing our interests in Bahrain will be facilitated by 
the close bonds of friendship that have been developing over--
have been developed over many decades with the Bahraini people, 
beginning more than 100 years ago through the founding of the 
American Mission Hospital, which continues to serve patients in 
Bahrain today.
    Hundreds of Bahraini students come to the United States 
each year to attend U.S. colleges and universities, providing 
Bahrainis with a deeper understanding of American society and 
the American people. And more than 2,500 Bahrainis have 
participated in official cultural and academic exchanges over 
the several decades, including the Fulbright Program.
    Finally, Mr. Chairman, ensuring the safety of the people 
who serve at Embassy Manama and the American citizen community 
resident in Bahrain will be my foremost priority, if confirmed 
as Ambassador to Bahrain. During my career in the Foreign 
Service, I have served across the Middle East, including in 
high-threat posts under persistent threat of terrorist attack. 
I understand the importance of prudent and proactive security 
measures to protect our personnel, as well as the need for 
close and open communication with the American citizen 
community to ensure their safety and security.
    Thank you again for the opportunity to appear before you 
today. It is a singular honor to have been nominated to serve 
as Ambassador to Bahrain.
    I welcome any questions you may have for me. Thank you.
    [Mr. Siberell's prepared statement follows:]


                 Prepared Statement of Justin Siberell

    Chairman Corker, Ranking Member Cardin, members of the committee, 
Thank you for the opportunity to appear before you today as President 
Trump's nominee to be the United States Ambassador to the Kingdom of 
Bahrain. I am extremely grateful to the President and to Secretary 
Tillerson for the confidence they have shown in me through this 
nomination. If confirmed, I look forward to working closely with the 
Congress and with this committee to advance our nation's vital 
interests with Bahrain.
    I am privileged to be joined today by my family--my wife Arnavaz, 
our son Samuel and daughter Emeline. Our youngest son, Benjamin, is in 
school today. Ours is a true Foreign Service family, with each of our 
children born during one of our assignments in the field--Sam in 
Tunisia, Emmie in Jordan, and Ben in the United Arab Emirates.
    Mr. Chairman, the United States and Bahrain share a long-standing 
partnership based on common interests in regional security and the 
friendship of our two peoples. Since the 1940's, Bahrain has hosted the 
United States Navy and is currently home to thousands of Americans 
attached to U.S. Navy Central Command and the U.S. Fifth Fleet. The 
operational and logistical support that the Kingdom provides our 
military is essential to the success of our campaign against ISIS and 
enables our Navy to lead a 31-country international coalition that 
counters piracy, drug trafficking, and terrorism across 2.5 million 
square miles of ocean and seas.
    The United States works closely with the Bahrain Defence Force to 
ensure Bahrain has the tools and capabilities to defend against 
external aggression and strengthen cooperation with U.S. and other 
allied regional militaries. Mr. Chairman, as you are aware, the 
administration recently notified the Congress of the approval of a 
number of possible defense sales that will address critical needs in 
the Bahrain Defence Force's air, land and naval capabilities, including 
the sale of new F-16 aircraft and upgrades to previously purchased F-
16s. These new military sales will provide Bahrain with a reliable 
capability and increased interoperability with U.S. forces.
    I look forward to close cooperation with colleagues at the 
Department of Defense to continue to support Bahrain's armed forces to 
address shared threats. In this regard, we are committed to working 
together with Bahrain to ensure it is able to counter persistent 
threats from Iran, including Iran's training and supply of lethal aid 
to individuals and groups targeting the Government and security forces 
of Bahrain.
    Success in confronting shared threats in the Gulf region rests in 
large part on the commitment of our close partners to work together 
towards inclusive and mutually-supportive security arrangements. It is 
for this reason that the United States continues to encourage a rapid 
resolution to the ongoing dispute among the GCC states. If confirmed, I 
will work to support the efforts of Secretary Tillerson to assist the 
parties in resolving their differences.
    Enhancing our security cooperation with Bahrain does not diminish 
the enduring emphasis we place on human rights issues. Indeed, our 
counterterrorism and military cooperation with Bahrain is paired with a 
clear understanding that Bahrain's own long-term stability and security 
depend on it achieving political reconciliation and upholding its 
commitments to universal human rights. We continue to be concerned with 
government actions against nonviolent political and human rights 
actors, and will continue to urge the Government of Bahrain to take 
steps to ensure inclusive elections in 2018 and to advance reform 
efforts for the benefit of Bahrain's long-term security and our mutual 
interests in regional stability. If confirmed, I will work to ensure 
that we continue to have an open and honest dialogue with Bahrain on 
the full range of issues affecting our bilateral relationship, 
including human rights.
    Increasing American exports and jobs for the American people is a 
top priority for me. The United States and Bahrain enjoy a strong 
economic partnership, highlighted by the U.S.--Bahrain Free Trade 
Agreement. Since that agreement entered into force in 2006, bilateral 
U.S.--Bahrain trade has more than doubled to $1.7 billion annually. 
More than 180 U.S. companies do business in Bahrain, a number I am 
committed to grow if given the opportunity.
    Bahrain deserves praise for its efforts to end human trafficking 
within its borders by developing a national referral mechanism, 
promoting a national anti-trafficking strategy, investigating potential 
trafficking cases, and taking steps to amend elements of the 
sponsorship system that increases workers' vulnerability to forced 
labor and debt bondage. There is more that can be done, as indicated in 
the State Department's annual Trafficking in Persons Report, including 
proactive identification of potential forced labor victims and 
increased prosecutions of forced labor crimes. This issue is very 
important to me and to this administration, as I know it is to this 
committee.
    Advancing our interests in Bahrain will be facilitated by the close 
bonds of friendship that have been developed over many decades with the 
Bahraini people, beginning more than 100 years ago through the founding 
of the American Mission Hospital, which continues to serve patients in 
Bahrain today. Hundreds of Bahraini students come to the United States 
each year to attend U.S. colleges and universities, providing Bahrainis 
with a deeper understanding of American society and the American 
people, and more than 2,500 Bahrainis have participated in official 
cultural and academic exchanges over several decades, including the 
Fulbright Program.
    Finally, Mr. Chairman, ensuring the safety of the people who serve 
at Embassy Manama and the American citizen community resident in 
Bahrain will be my foremost priority if confirmed as Ambassador to 
Bahrain. During my career in the Foreign Service, I have served across 
the Middle East, including in high threat posts under persistent threat 
of terrorist attack. I understand the importance of prudent and 
proactive security measures to protect our personnel, as well as the 
need for close and open communication with the American citizen 
community to ensure their safety and security.
    Thank you again for the opportunity to appear before you today. It 
is a singular honor to have been nominated to serve as Ambassador to 
Bahrain.


    The Chairman.  Thank you. Thank you for your testimony.
    Mr. Dowd.

 STATEMENT OF J. STEVEN DOWD, OF FLORIDA, NOMINEE TO BE UNITED 
 STATES DIRECTOR OF THE AFRICAN DEVELOPMENT BANK FOR A TERM OF 
                           FIVE YEARS

    Mr. Dowd. Chairman Corker, Ranking Member Cardin, and 
distinguished members of the Foreign Relations Committee, it is 
a great honor to appear before you today as the nominee to 
serve as Executive Director of the African Development Bank.
    For decades, I have worked in project finance, 
agribusiness, and logistics in developing countries. And, if 
confirmed, I will marshal all my professional experiences 
toward bettering the African Development Bank and furthering 
U.S. interests.
    I would like to introduce my wife, Lillian, my life's 
inspiration, and our three children, Steven, Thomas, and 
Andrea. Lillian is an attorney who previously served as a 
Deputy Attorney General in Delaware. Lillian is profoundly 
committed to combating human trafficking and child stunting and 
malnutrition, a commitment I share. If confirmed, I will search 
for ways to make the Bank a forceful check on these twin 
scourges.
    My first encounter with development economics was as a 
teenaged merchant crewman delivering Food for Peace PL-480 
grain cargoes to hungry nations. I watched as the desperately 
poor struggled to survive and made the most of the grain we 
delivered to them. Later, postgraduate studies at the 
Georgetown School of Foreign Service allowed me to deepen my 
knowledge of development economics in the context of global 
issues. Since then, I have worked in logistics and finance on 
private development projects around the world. Therefore, I 
believe I am well equipped to address the challenges facing the 
African Development Bank.
    If confirmed, I would lead the effort to leverage the U.S. 
contribution to the Bank in order to ensure that its finance 
efforts are used to the best benefit for Africa, that they are 
consistent with U.S. policy interests there, and that American 
taxpayers get a good return for their money. I will strive to 
open Africa to American investment and know-how and facilitate 
U.S. companies doing business in Africa. I will also advocate 
for additional efforts to curb corruption and abuses of power 
that inhibit Africans to live longer, healthier, better lives.
    Finally, if confirmed as Executive Director of the African 
Development Bank, I will work closely with the members of this 
committee and its staff, and with other Members of Congress, to 
perform my responsibilities as effectively as possible.
    Mr. Chairman, I thank you for this opportunity to be--to 
appear before you and the other members of the committee. And I 
look forward to your questions.
    [Mr. Dowd's prepared statement follows:]


                  Prepared Statement of J. Steven Dowd

    Chairman Corker, Ranking Member Cardin, and distinguished members 
of the Foreign Relations Committee, it is a great honor to appear 
before you today as the nominee to serve as Executive Director of the 
African Development Bank. For decades, I have worked in project 
finance, agri-business and logistics in developing countries, and if 
confirmed, I will marshal all my professional experiences toward 
bettering the African Development Bank and furthering U.S. interests.
    I would like to introduce my wife Lillian--my life's inspiration--
and our three children: Steven, Thomas and Andrea. Lillian is an 
attorney who previously served as a Deputy Attorney General in 
Delaware. Lillian is profoundly committed to combatting human 
trafficking and child stunting and malnutrition, a commitment I share. 
If confirmed, I will search for ways to make the bank a forceful check 
on these twin scourges.
    My first encounter with development economics was as a teen-age 
merchant crewman delivering Food for Peace PL-480 grain cargoes to 
hungry nations. I watched as the desperately poor struggled to survive 
and made the most of the grain we delivered to them. Later, post-
graduate studies at the Georgetown School of Foreign Service allowed me 
to deepen my knowledge of development economics in the context of 
global issues. Since then I have worked in logistics and finance on 
private development projects around the world. Therefore, I believe I 
am well equipped to address the challenges facing the African 
Development Bank.
    If confirmed, I would lead the effort to leverage the U.S. 
contribution to the bank in order to ensure that its finance efforts 
are used to the best benefit for Africa, that they are consistent with 
U.S. foreign policy interests there, and that American taxpayers get a 
good return for their money. I will strive to open Africa to American 
investment and know-how, and facilitate U.S. companies doing business 
in Africa. I will also advocate for additional efforts to curb 
corruption and abuses of power that inhibit Africans to live longer, 
healthier, better lives. Finally, if confirmed as Executive Director of 
the African Development Bank, I will work closely with the Members of 
this committee and its staff, and with other Members of Congress, to 
perform my responsibilities as effectively as possible.
    Mr. Chairman, I thank you for this opportunity to appear before you 
and the other members of the committee, and I look forward to your 
questions.


    The Chairman.  I am deferring to Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    And again, I thank all three of our nominees, and thank you 
for your public service, and thank your families.
    Mr. Siberell, I would like to start with Bahrain. Secretary 
Tillerson said, ``In Bahrain, the Government continued to 
question, detain, arrest Shi'ite clerics, community members, 
and opposition politicians, members of the Shi'ite community 
there, continue to report ongoing discrimination in government 
employment, education, and the justice system. Bahrain must 
stop discriminating against the Shi'ite communities.'' 
Secretary Tillerson. Are you prepared, if confirmed as 
Ambassador, that our mission in Bahrain will be open to the 
Shi'ite community be able to have an advocate on behalf of 
their concerns against the Bahrain Government?
    Mr. Siberell. Senator, thank you very much for the question 
and for your interest in this particular issue. Those remarks 
are from the Secretary's release of the International Religious 
Freedom Report recently. And absolutely, to answer your 
question, my mission would remain open to all voices within the 
Bahraini political and civil society, as we have been. And I 
look forward to continuing that and being open to all voices.
    Senator Cardin. And I want it to be open to all voices, but 
the Shi'ite population has a particular urgent need.
    Mr. Siberell. Understood. Yes, Senator.
    Senator Cardin. And you will keep this committee and me 
informed as to what you are doing in regards to that.
    Mr. Siberell. I look forward to that opportunity, Senator, 
absolutely, yes.
    Senator Cardin. Mr. Dowd, can you just share with us your 
commitment in regards to the operations at the Bank or the 
member countries in fighting corruption, which is a major 
problem in that region?
    Mr. Dowd. Thank you for the question, Senator.
    Absolutely. You are correct that corruption is a scourge of 
the continent. It is pervasive. And I--although I am not onsite 
yet, and I do not really know what the Bank is currently doing 
in this regard, I will certainly advocate forcefully for the 
maximum control of corruption and malfeasance.
    Senator Cardin. I am going to be asking all three of you, 
in your--if confirmed--in your missions, to keep my staff 
informed as to your progress being made on behalf of good 
governance, human rights, anti-corruption, where you can all 
three play a major role.
    Ambassador Bass, you and I had a chance to talk about the 
fact that you are not going to have a lasting peace in 
Afghanistan unless the Government is respected the rights of 
all the people of Afghanistan.
    But, I want to ask you a particular question. I agree with 
your statement that we do not seek any permanent military bases 
in their country, referring to Afghanistan. Now, we have been 
there since 2001. Sixteen years might not be permanent, but it 
is starting to look like a permanent presence of American 
troops in Afghanistan. What is it going to take for us to be 
able to get our troops home? Do you really envision that your--
during your term of Ambassador, assuming that you are 
confirmed, that we will be able to bring our troops home?
    Ambassador Bass. Senator, thank you for articulating one of 
the key questions that we are all asking, and have been for a 
number of years.
    It has been out of my lane to offer an assessment on the 
military side, in terms of where a tipping point will come. I 
do not think it is realistic to expect that--whether it is 2 
years from now or 3 years from now, that we will have a much 
smaller military footprint.
    Senator Cardin. I agree with that assessment. It is a very 
honest response. How do you have credibility with this 
statement that we are not seeking a permanent military base in 
Afghanistan, when, upon your arrival, there will be more 
American troops arriving with you?
    Ambassador Bass. I think the key aspect of that is what we 
are doing, and will be doing, which is primarily to support the 
Afghan Security Forces to get better over time at taking care 
of their own security needs. And if we are successful in doing 
that over time, there is less of a requirement for U.S. forces 
to be there. Easier said than done. As I said, this is going to 
be hard, and it is complicated. But, I think that is our road 
to a smaller footprint over time, hopefully through a 
negotiated political settlement. And it is through that 
settlement that I think we ensure that we do not have to have a 
permanent military presence there.
    Senator Cardin. And I think credibility is very important. 
And, as you said, ``a smaller footprint over time'' still gives 
me less comfort that we do not have a permanent presence in 
Afghanistan, of American troops. Something that I strongly 
believe is critically important for Afghans' future, is that 
there is a end--a light at the end of the tunnel that we will 
be bringing our troops home from Afghanistan. And, quite 
frankly, I do not see that in the game plan that has been 
presented. It looks like a permanent U.S. presence.
    Thank you, Mr. Chairman.
    The Chairman.  Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Ambassador Bass, I appreciated you making the mention of 
corruption, because Afghanistan continues to experience 
corruption, really at all levels. Systemic corruption in 
Afghanistan, it is a major threat to U.S. objectives, I 
believe, in that country, to the point that the Special 
Inspector General for Afghanistan has uncovered terrible 
examples, as you know, of waste, of corruption, of fraud, in 
the way that reconstruction funds have been spent in 
Afghanistan. We talked about it here previously in this 
committee.
    Last year, the Special Inspector General found, quote, 
``The United States contributed to the growth of corruption--
the United States contributed to the growth of corruption by 
injecting tens of billions of dollars into the Afghan economy, 
using flawed oversight in contracting practices, and partnering 
with malign power brokers.''
    So, you know, what is your assessment of the amount of 
foreign assistance that Afghanistan can actually absorb? And 
these are bipartisan concerns. In the hearing with the 
Inspector General's finding--I mean, this is not a partisan 
issue at all; this is an American issue of great concern. So, 
could you visit a little bit about that?
    Ambassador Bass. Thank you, Senator. Again, another key 
piece of the challenge set, and what we need to be focused on.
    I did note, as you mentioned, an emphasis during my tenure, 
if I am confirmed, in ensuring that we focus a great deal of 
our efforts on helping the Afghan Government address this 
problem set, and on ensuring that we are spending wisely, 
whether we have a lot of resources to work with or not very 
many. For me, the key variable is making sure we get an impact 
and a result for spending the taxpayers' dollars.
    I think the key is, we now have a government that is taking 
this problem seriously in Afghanistan, just released a new set 
of measures under a term called the Kabul Compact, which 
includes a lot of key reform efforts they are committed to 
undertaking. And, importantly, they have asked us to hold them 
accountable for results. And, if I am confirmed, I can assure 
you that will be a top priority for me.
    Senator Barrasso. I appreciate it, because accountability 
is a big issue for all of us, and then the oversight to make 
sure--as you said, to hold them accountable. Can you talk a 
little bit about what you could do to improve our abilities--
the ability of our government to--just to oversee and to 
monitor this assistance?
    Ambassador Bass. Well, I think we are going to continue to 
need to be creative and thoughtful and imaginative about how we 
do that, given some of the security challenges. Obviously, I do 
not want to put people in harm's way unduly, but, at the same 
time, I also want to make sure we are getting results for our 
funding.
    My understanding is, we have got some pretty thorough 
third-party monitoring efforts in place utilizing a lot of 
Afghans, sometimes at risk to themselves. But, I certainly will 
want to take a fresh look at it to see if there are ways we can 
improve that.
    Senator Barrasso. Well, you hit the key word that I have 
been--my next--my little notes to myself is--what about the 
security? How has the security situation and violence impacted 
the effectiveness of our civilian mission?
    Ambassador Bass. It has definitely made doing our work more 
challenging. It is harder for people to be out and about in 
society, but I think my colleagues have done a good job of 
finding ways to continue to interact with Afghans, whether it 
is them coming to see us more regularly, working through 
intermediaries, in some cases. But, as the security environment 
continues to change, we obviously have to adapt and change with 
it, whether it is getting worse or whether it is getting 
better. And I think that is a key piece of what Chiefs of 
Mission are responsible for, is to make sure we can do that.
    Senator Barrasso. Because, I mean, you have broad 
experience, a wonderful career. You have been a lot of places, 
so that--I mean, that is my question, is, How does the 
Government then properly evaluate and monitor programs in 
countries across the world, where there are serious 
restrictions on freedom of movement and a deteriorating 
security environment?
    Ambassador Bass. As I noted, I think we have to be 
creative, we have to be thoughtful, and we have to adapt to 
conditions as they exist. And we have to learn as we go. And my 
sense is that we are doing that. And we need to continue to do 
that. But, I think, most importantly, we need to make sure that 
we continue to have some degree of visibility on individual 
programs, individual projects so that we are constantly 
evaluating whether we are getting the results we should.
    Senator Barrasso. Well, thank you. Thank you very much for 
your willing to serve.
    And congratulations to all of you, and to your families, as 
well.
    My time is expired.
    The Chairman.  Thank you.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you all very much for your willingness to serve 
the country. And congratulations on your nominations.
    Ambassador Bass, as we again increase troops in Afghanistan 
and look at the military conflict there, one of the significant 
pieces of success is the importance of our local partners on 
the ground. And one of the promises that we have made is that, 
for those Afghans who help us in our mission there, that if 
they are threatened, that we will try and allow them to come to 
the United States, out of harm's way. And I wonder, if you 
would--if you can commit, this morning, to publicly continue to 
support the Afghan Special Immigrant Visa Program, and whether 
you agree that it is important that we keep this program in 
place.
    Ambassador Bass. Thank you, Senator.
    I think we have a solemn obligation to support local 
colleagues who often work for us, serve the interests of the 
United States, at great risk to themselves and their families. 
My colleague, Mr. Siberell, and I have both worked with Iraqis 
who would tell us stories of a 2-hour commute in each 
direction, with five and six changes of transportation, to make 
sure that it was not visible. And I am sure you have heard many 
of those kinds of stories. And within the construct of 
resources and at ref to larger administration policies, 
certainly I will be continuing to advocate that we do the right 
thing by those people in Afghanistan who have been serving us.
    Senator Shaheen. Thank you very much.
    On Monday, the Pakistani Foreign Minister went to Iran. And 
the news out of his meetings with Mr. Rouhani were that they 
discussed the importance of a political solution in 
Afghanistan. Can you talk about the role of the region in 
Afghanistan and in our potential to reach a political 
settlement there, and how important the role of Pakistan and 
other countries are in doing that?
    Ambassador Bass. Thank you.
    It--we will not succeed if we do not have the support and 
cooperation of Pakistan's neighbors and the wider circumference 
of significant countries in the wider region who also have an 
enormous stake in the stability and relative security of 
Afghanistan. I think one of the things working in our favor as 
we pick our way through this complicated landscape is that, 
generally speaking, everyone wants to see the same result in 
Afghanistan. It is not in anyone's interest for Afghanistan to 
remain a sinkhole of violence and a safe haven for extreme 
terrorism.
    So, the challenge we have got is to ensure that we have got 
a common approach among all of these countries about how we 
achieve that result we all want to see, and ensuring that the 
neighbors and the--this wider set of countries continue to 
support the Afghan Government in its efforts, not simply to 
deal with the violence and the terrorism inside the country, 
but to also build that government capacity so that, if we do 
get to a political settlement, there is a capable government 
that can negotiate with the Taliban and then perform the basic 
functions of government on the other side of that.
    Obviously, Pakistan has a key role to play. They have been, 
as we know, a source of some of the significant challenges in 
Afghanistan in enabling the Taliban to rest and refit, plan 
coordinated attacks. So, I think we have got a lot of work to 
do. And, as I noted, I am going to be working very closely, if 
I am confirmed, with Ambassador Hale and many colleagues here 
in the Department to try to change the Pakistani Government's 
approach towards this problem set and how they best see a 
resolution.
    Senator Shaheen. Thank you.
    Mr. Siberell, you mentioned, in your opening statement, the 
fact that we have just approved a sale of F-16s to Bahrain. And 
you also pointed out the concerns about human rights there, and 
how we address those. During the previous administration, the 
sale of F-16s had been held up. And, as I understand, there was 
a linkage to human rights violations as part of that sale. Do 
you think we should continue to try and be--look at tying what 
is happening on the human rights front to other military 
assistance to Bahrain, or other aid that we give them?
    Mr. Siberell. Senator, thank you very much for the 
question.
    I think it is absolutely vital that we pursue the broad 
range of our interests with the Government of Bahrain, both 
strengthening their own capability to defend the country from 
very real threats from Iran and others in the region, and from 
terrorist threats, but, at the same time, never step away from 
our obligations to continue to hold a very open and serious 
dialogue with the Government of Bahrain about conditions inside 
the country, to include the promotion and protection of human 
rights.
    There are some cases in which we have not been willing to 
sell the Bahraini Government certain items, particularly with 
regard to crown control and internal security. And those remain 
in place. But, the linking directly of the military sales, 
which get to the, you know, key element of our partnership to 
help Bahrain defend itself, and also operate alongside U.S. 
forces, this is a very important component of our military 
cooperation, to the human rights issue, those just need to be 
brought together in our conversation, in a broadbased 
conversation with the Bahraini Government, in my view.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  If I could, on that note--a very good 
question--I think that Senator Cardin had a conversation with 
them. It is my belief that we should not tie human rights 
directly to arms sales, but we certainly should work at it side 
by side. These sales, by the way, are ones that were approved 
prior to the hold that was placed on sales to all GCC members 
as relate to the--as it relates to the conflict that exists 
right now between these countries and Qatar. So, this was a 
previously approved sale. And I know there has been some 
misreporting on that. The sales that were discussed after the 
fact are still on hold, and hopefully will help bring 
resolution to the conflict there.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of you.
    Mr. Dowd, you are--you have a good fortune of being on a 
panel with two people whose billets are pretty controversial. 
That means they get most of the questions.
    But, let me ask Mr. Siberell, just on the Bahraini 
question. I was in Bahrain only once. And it has now been a 
number of years ago. But, obviously, with the Fifth Fleet 
there, the situation in Bahrain is very important to us. They 
are facing a very real challenge of Iranian-supported efforts 
to destabilize the Government, but they also have a citizenry 
that is 70-percent Shi'a, and a wide perception, in and outside 
the country, that the Shi'a population there is not being 
treated well. So, you are going to have a lot of instability if 
you do not treat 70 percent of your population well. And if you 
just try to blame it on somebody else, that is not going to go 
very far.
    My perception, over the last few years, is, whether it is, 
you know, threatened arms sales or not, that the human rights 
situation in Bahrain, and the sincere effort to deal with and 
then make progress on concerns of 70 percent of the population, 
there has not really been much progress. I would love to be 
wrong about that assumption. Am I wrong about that?
    Mr. Siberell. Well, Senator, thank you very much for your 
question. I think you have identified one of the critical 
challenges we have.
    On the one hand, Bahrain faces very real, credible threats 
from Iran. Those have been voiced by senior officials in the 
Quds Force that have threatened Bahrain. We know of Iranian 
training and equipping of individuals and groups who threaten 
the Bahraini Security Forces. There have been----
    Senator Kaine [continuing]. Efforts to ship arms into 
Bahrain.
    Mr. Siberell. Absolutely.
    Senator Kaine. Yeah.
    Mr. Siberell. That is right. And, in fact, earlier this 
year, the State Department designated two individuals who are 
part of the al-Ashtar brigades, one of whom is resident in 
Iran, who had been involved in attacks against the Bahraini 
state and the Government. So, there is a serious threat, there 
is a real threat there.
    At the same time, as you pointed out, channels, and 
effective channels, for political discourse for involvement in 
the affairs of the country are critical to ensuring the 
essential stability upon which our partnership must rest, and 
ultimately for the stability and strength of the Bahraini state 
and its relationship with its people.
    When I was previously--in my previous position in the 
Counterterrorism Bureau, we frequently emphasized, with 
partners in governments, that there need be no contradiction 
between promotion and protection of human rights, fundamental 
civil and human rights, and an effective security practices, 
which protect the population. And that is a point I will 
continue to emphasize, if given the opportunity, if confirmed 
as Ambassador to Bahrain, that we need to bring these two 
together. To conflate security and terrorism with--or to 
conflate, rather, legitimate political speech with terrorism is 
to potentially cut off channels for the kind of discourse that 
is required for, ultimately, a healthy and stable society.
    Senator Kaine. I think it is very important. And again, it 
is important, in and of itself, but, with the Fifth Fleet 
presence being so important, and its continued viability, long-
term, in Bahrain being connected certainly to the stability in 
that country, it really achieves a huge importance. So, thank 
you for that.
    Ambassador Bass, you are going to do a--as good a job as 
any human can do in this position. I have such confidence in 
you from my work with you when you were Ambassador to Turkey. 
One of the things we are really going to need from you, should 
you be confirmed, is candor. An area that I always find 
perplexing here is, when it comes to Afghanistan, whether I am 
talking to State, DOD, or our intel agencies, I get very 
different--very, very different pictures of what might happen. 
And so, we are going to really need candor from you. And once--
one of our lead military officers in Afghanistan said something 
really candid to me, and I say, ``I appreciate your candor,'' 
and he goes, ``I am going to be candid. What are they going to 
do? Send me to Afghanistan?'' [Laughter.]
    Senator Kaine. So, we are going to need your candor, 
because I think there is a lot of confusion about the future 
mission, but also what is the likelihood of success.
    And we really need to hear from the administration on this. 
The President made a speech that, I think, at the top level, 
was fine, but there were not a lot of details. And then we got 
a good briefing last week, in a classified setting, members of 
the Senate did, but, like the briefing we got about the ISIS 
plan, it was in a classified setting. We have not had public 
briefings. And this is something that the public really needs 
to hear. That is more likely to be a briefing in the Armed 
Services Committee than here. But, we cannot operate just on 
the basis of classified briefings about what the plan is. We 
have to bring the public into this.
    Let me just ask you one question, quickly. What is your 
perception, as somebody's who is really skilled in this area--
what is your perception about the arc of progress in Pakistan 
in fighting extremist terrorist elements that are on the 
Afghanistan-Pakistan border? Are we going in the right 
direction, are we in stasis, or are we going in the wrong 
direction?
    Ambassador Bass. Thank you very much, Senator.
    I think we are going in the right direction. But, as with 
all of these challenges, it is not necessarily always going to 
be a linear process. The adversaries adapt. We have to then 
make adjustments. They adapt again. I have seen this happen 
persistently through the last 3 years of--from Turkey, working 
with our colleagues in uniform on that--on the problem set in 
northern Iraq and northern Syria.
    Senator Kaine. So, you believe--and I will be very quick--
you believe we are going in the right direction. It is not 
linear, so we might wish the pace would be faster. But, the way 
you just said it is, adversaries adapt. So, to the degree to 
which we are not going fast enough, you view it as more the 
adaptation of adversaries rather than any equivocal commitment 
on behalf of the Pakistani Government and military?
    Ambassador Bass. I would not make that stark an assessment.
    Senator Kaine. Okay.
    Ambassador Bass. I think we need both. We need to continue 
to adapt our tactics. Obviously, outside my lane. But, in my 
lane, we have got to continue to mobilize diplomatic persuasion 
and some pressure on the Government of Pakistan to make sure we 
get the right performance on the safe-haven challenges.
    Senator Kaine. Right.
    Thank you for letting me go over, Mr. Chair.
    The Chairman.  Oh, no problem.
    I am going to go ahead and call on Senator Merkley, and 
then Senator Coons. I have to step out to the ante room for a 
moment. I know that you all will work cooperatively with each 
other.
    So, Senator Merkley?
    Thank you.
    Senator Merkley. Thank you, each of you, for your 
willingness to serve the United States.
    Ambassador Bass, which is more complicated, Turkey or 
Afghanistan?
    Ambassador Bass. Senator, I think it depends on the day.
    Senator Merkley. Well, two extraordinarily difficult 
situations.
    The President has said that we will not dictate to the 
Afghan people how to live or how to govern their own complex 
society, and that we are not going to be engaged in nation-
building. Does this mean our investment in health centers is 
ending?
    Ambassador Bass. Thank you very much for identifying that 
aspect of our ongoing efforts.
    As I noted in the outset, we are going to continue to need, 
on the civilian side, to ensure that we have a government that 
is capable of governing on the other side of a political 
settlement, if we are successful in creating the conditions 
that bring the Taliban to the table. From my perspective, a 
government that is capable is a government that is responsive 
to the needs that are identified by its citizens.
    Senator Merkley. Well, I am just trying to get clarity on 
this point. Are we planning to continue investing in health 
centers, or not?
    Ambassador Bass. My understanding is, in the short term, we 
certainly are.
    Senator Merkley. Okay. Let us turn, then, to our investment 
in road infrastructure. Is that--is the intention to continue 
that investment, as well?
    Ambassador Bass. I believe, for out years, that is under 
consideration by AID as they reevaluate priorities and the 
security.
    Senator Merkley. What projects are we actually canceling, 
in terms of the President's dictates to no longer engage in 
nation-building?
    Ambassador Bass. My understanding, based on my initial 
consultations with AID, is that they are now reviewing their 
current portfolio and planning to put some recommendations 
forward, but I do not have an specifics.
    Senator Merkley. So, there is no answer. At this point, it 
is just a policy idea out there in the air, but no concrete 
plan.
    Ambassador Bass. It is.
    Senator Merkley. Okay. We have responded to a few things 
within Afghanistan that are very offensive to Americans: 
widespread child rape by warlords, and also the widespread 
societal discrimination against women and girls. When the 
President says we are not going to dictate how to govern, does 
this mean we are not going to weigh in on those issues anymore?
    Ambassador Bass. I believe we will continue to express our 
strong concerns about practices and activities in Afghanistan 
that are outside of commitments Afghans have made to themselves 
under their constitution and with their international 
commitments.
    Senator Merkley. Okay. Well, so far, this sounds very much 
like our current policy. And we throw in pressure on 
corruption, which we have been doing forever, there are a few 
show trials to make us happy, but international organizations 
say it is as bad as it has ever been, or perhaps worse, with 
the strength of some of the warlords. We have pressured 
Pakistan before; in fact, to the point that they shut down the 
Khyber Pass, and we had to airlift and turn to Central Asia to 
import things into our supply chain into Afghanistan. We say 
our new strategy is to support the Afghan forces. That has been 
our old strategy, to enable them to do that work. We say, 
``Well, we are working to set the stage for political 
settlement.'' That is, in fact, our old policy.
    So, on these five fundamental principles, this sounds very 
much like a continuation of the existing policy. What am I 
missing?
    Ambassador Bass. Well, I think you are going to see a 
renewed focus on the broader regional challenge. My 
understanding, from my colleagues at the Pentagon, is that they 
believe that, notwithstanding the challenges of the past few 
years, fighting seasons, the Afghan defense forces are becoming 
more capable, and they are taking on more to the fight, 
themselves. So, I think it is a different fight, if you will, 
from 5 years ago. And I think, importantly, on the civilian 
side, we have a government now that wants our help, is willing 
to listen to us, is asking us to hold them to commitments they 
are making to themselves. And my understanding is, that is a 
bit different from some of the past dynamics.
    Senator Merkley. I would just note that, in terms of 
pressuring Pakistan on the safe haven, we applied enormous 
pressure before. And not only did they shut down our movement 
of goods into Afghanistan, but they have noted that they have 
had 50,000 civilian deaths, or 5,000 Security Force deaths, 
taking on extremists within Pakistan. That is a higher price 
than virtually anyone else has paid. And our failure to 
recognize that is profoundly offensive to them. And they are 
also very concerned about the drone strikes that have killed 
many civilians within Pakistan, as well, at least in the 
opinion of the Pakistani Government.
    The argument has always been, ``Well, we are not going to 
let Afghanistan be a haven for terrorists.'' Al-Qaeda, 
essentially, long gone, down to less than 100, years and years 
ago. The Taliban, obviously, control a significant share of the 
country. They can hold meetings all over the country. But, 
those meetings occur with far less logistical support than 
terrorists--related terrorists can have in Somalia, in Yemen, 
where there is more communications, more access to ports.
    The long and short of it is, Afghanistan today, a planning 
can be held in any one of thousands of buildings. They control 
more territory. Does not affect whether or not they can hold 
meetings. Is there not something kind of missing in our basic 
theory that we are denying--that somehow our current presence 
is denying planning meetings from occurring inside Afghanistan?
    Ambassador Bass. Senator, always hard to prove a 
hypothetical. What I would offer is different context, but what 
I have watched over the last 3 years is what happens when you 
have ungoverned space that is violent, unstable, and creates 
new opportunities for even more extreme terrorist groups to 
take root. And I think one of the most disturbing trend lines 
of the last couple of years is the creation of an ISIS 
affiliate in Afghanistan that potentially could inject a 
sectarian dimension into the conflict, which largely has not 
been there in the past. And if we think we have a big problem 
set now, it could get even worse.
    So, you know, my answer would be, we have to continue this 
effort, because I think all the alternatives are even worse for 
us.
    Senator Merkley. But, you would acknowledge there is a lot 
of ungoverned space that fits that definition right now within 
Afghanistan.
    Ambassador Bass. Yes.
    Senator Merkley. Yeah. Okay, thank you.
    Senator Coons. Thank you. With the concurrence of my 
wonderful colleague, Senator Young, I am going to proceed, if 
that is okay.
    Senator Young. Duly concurred.
    Senator Coons. Thank you, Senator.
    Many of us have competing hearings. And so, forgive me for 
having departed and returned. So many others do, as well, and 
it leads to some of this uneven timing.
    Thank you, all three of you--Mr. Dowd, Mr. Siberell, and 
Ambassador Bass--for your willingness to serve our country in 
these important different posts and regions.
    And, Mr. Dowd, when I realized that your wife had served as 
a Deputy Attorney General in Delaware, I realized I had to come 
back. I--there was no way I could miss an opportunity to 
highlight both your passionate engagement in issues in Africa 
and your wife's dedicated service to law enforcement, and to 
the important work against trafficking.
    Let me begin, if I might, with Ambassador Bass. It is great 
to see you again. I respect your service in Turkey and, as 
several of my colleagues have referenced, taking on now the 
challenge in Afghanistan is one that dwarfs, I think, even the 
challenge in Turkey.
    Not to put too fine a point on it, but one of the things 
that I found striking about the President's address, about our 
path forward in Afghanistan, and was in some ways repeated in 
your opening statement. I think I quote you, ``We have to make 
clear to the Taliban they cannot outlast us on the 
battlefield.'' That is clearly our new conditions-based, as it 
were, framework. How long do you think the Taliban can last on 
the battlefield? Twenty-five years? Fifty years? A hundred 
years?
    Ambassador Bass. Senator, thank you for that question.
    Senator Coons. It is a question I think all of us should be 
wrestling.
    Ambassador Bass. Absolutely.
    Senator Coons. It is not meant as a gotcha question.
    Ambassador Bass. No, no.
    Senator Coons. It is a question I wrestle with.
    Ambassador Bass. No. And it is one of the reasons why I 
welcome this--these exchanges, because these are the right 
questions for all of us to be wrestling with. Bit difficult for 
me to answer it at this stage of my preparations, given how 
much of it is informed by, you know, detailed assessments of 
our analysts and our military colleagues.
    Senator Coons. Well, then, in the interest of time, let me 
simply say that, as we work together to clarify and refine our 
Nation's strategy with regards to Afghanistan, one of my core 
concerns is that, when we are considering people who live in 
caves and who are deeply dedicated to their work against us, I 
think we would be wise to assume a longer, rather than a 
shorter, timeline of their determined unwillingness to 
negotiate and their commitment to the fight. And I just wish 
the President's call to arms for a longer-term engagement had 
been clear about that. And I think all of us wrestle with that. 
Sixteen years is an awfully long time to be at war in 
Afghanistan. But, if we are moving to a conditions-based 
strategy, we might very well be facing a generational 
commitment.
    Now, decades after the Korean conflict ended, we still have 
significant military assets on the Korean Peninsula. It is not 
that the United States is unfamiliar with long-term 
commitments. We still have military units on the ground in 
Germany, many decades after the end of the second World War. It 
is not impossible that we would choose to make a generational 
commitment to the stability and security of Afghanistan. I just 
think we need to be more clear-eyed about the consequences of 
that.
    Let me briefly ask you how you think we might deal with 
expanding Russian and Iranian influence in Afghanistan, as 
well, before I turn to your two colleagues.
    Ambassador Bass. Sir, the--I think we have to do two 
things. We have to make sure that we are in constant dialogue 
with them, notwithstanding some of the other challenges in our 
relationship with Russia, and potentially through Russia with 
the Iranian Government or others who are talking directly with 
them, to make sure we have got as close to common assessment of 
what is happening on the ground as we can. And we also got to 
continue to work to ensure that they are putting the weight of 
their effort behind supporting the Afghan Government in this 
effort, because, to the extent they start to hedge or intensify 
hedging by supporting the Taliban, that does not lead to a good 
outcome.
    Senator Coons. I am, frankly, gravely concerned, given the 
role that Vladimir Putin's Russia has played in the North 
Korean challenge, in Ukraine, in our recent election, that he 
will choose this moment to actively engage in opposition to our 
interests and our security in Afghanistan, particularly given 
he is a leader motivated by grievance over the fall of the 
Soviet Union, and it was, in many ways, our role in Afghanistan 
that accelerated the Soviet departure from Afghanistan. So, I 
would urge you to be attentive to that and communicate with us 
about it. Thank you for your willingness to take this on.
    Mr. Siberell, if I might briefly--while I am grateful for 
Bahrain's support, partnership with us in military matters and 
in counterterrorism, as a co-chair of the Senate Human Rights 
Caucus, I am concerned about the poor human rights conditions, 
which you referenced in your opening statement, in Bahrain. 
They have imprisoned the country's leading human rights 
defender, for tweets; they have banned the country's largest 
opposition party; they have killed clerics who have called for 
political reform. How will you encourage Bahrain's rulers and 
leaders to respect human rights?
    Mr. Siberell. Senator, thank you very much for the 
question.
    This will be very high priority for me in my discussions 
with the Bahraini Government. We do raise our concerns with 
regard to the specific issues in cases you addressed, and 
maintain a--an ongoing dialogue with the Government of Bahrain 
about the importance of protecting fundamental human rights. It 
is not--obviously, these are critical principles for the United 
States that we raise in many of our relationships, but, with 
regard to Bahrain in particular, given the strength of the 
security partnership, given the importance of a strong and 
stable partnership that must rest also upon stability 
fundamentally within Bahrain, this takes on a very important 
role in our dialogue, and I am committed to advancing that 
dialogue as I engage with senior leadership in the--in Bahrain, 
in the Government.
    Senator Coons. Thank you.
    Mr. Dowd, I was moved to read your characterization of your 
first engagement in Africa as a merchant crewman on a PL-480 
cargo ship. It is rare we hear that. Chairman Corker and I have 
worked to understand and to have a positive impact on U.S. food 
relief programs, both to sustain Food for Peace, in my 
appropriations role, but provide more efficient alternatives. 
This is a electric benefits card that is currently being used. 
I was in a refugee camp in Nigeria just a week ago. And there 
are other models, other than direct commodity relief. Commodity 
relief is appropriate in some settings, other more streamlined 
electronic relief is appropriate in other settings. Any 
exposure to that, any thoughts about that, on how the African 
Development Bank might accelerate the use of more transparent, 
accountable mechanisms for the delivery of assistance and aid?
    Mr. Dowd. Thank you, Senator. That is really a terrific 
question.
    I do not--not being there, I honestly cannot speak to it, 
but I would make a comment, if I may. I have read--I was very 
moved by the--your trip and the Chairman's trip last spring, 
when you went to the camps. And I am sure that was a profound 
experience for you. And I share it. And any way that I can 
encourage or lead the African Development Bank to assist in 
these matters, I am there. And I would certainly welcome your 
input in those, and that of your staffs.
    Senator Coons. Thank you, Mr. Dowd. I had a great meeting 
with Bank president Adesina, and we had a long conversation 
about his high-five agenda, sort of the five priority items. 
And I would welcome a chance to follow up with you about that 
and other matters of concern.
    I know I am now really impinging on my colleague's good 
graces.
    Thank you, to you, to your wife, Lillian, for your passion 
for fighting human trafficking and malnutrition. And if we can 
work together to find ways to do that that are more cost 
effective and efficient, that would make me a--very grateful, 
indeed.
    So, thank you, all three of you gentlemen, to you and your 
families, for your careers of service and for the service you 
are about to undertake.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Young.
    Senator Young. Well, I thank all our panelists, all our 
nominees, for your distinguished careers and for your 
willingness to continue serving.
    Ambassador Bass, I enjoyed our visit yesterday. I look 
forward to supporting your confirmation.
    I just want to reiterate my view that the U.S. military 
presence in Afghanistan should be based on our national 
security interests, on the advice of our commanders, and on the 
facts on the grounds. We observed, of course, the 9/11 
anniversary yesterday, and remembered our fellow citizens who 
were killed. And every year, we are reminded, we can never 
again allow the terrorists to use Afghanistan as a training 
ground and a launching pad for terrorist attacks against our 
homeland or that of our allies. For that reason, I applaud the 
Trump administration's rejection of withdrawal timelines that 
are disconnected from realities on the ground. At the same 
time, we have to be honest that the progress is not what it 
should be in Afghanistan, and the American people are right to 
demand better, to ask tough questions and insist on more detail 
and more accountability, moving forward.
    So, I will continue to scrutinize the strategy in 
Afghanistan--I look forward to staying in touch with you as I 
make efforts to do that, Ambassador Bass--to ensure that this 
administration has established clear and attainable metrics, 
milestones, objectives, and so forth, and also to ensure that 
our diplomats, our development experts, and our troops on the 
ground have the resources that they need to accomplish the 
mission. So, I look forward to working with you in that regard.
    I am going to turn now to the African Development Bank, Mr. 
Dowd. According to the U.N., between 2017 and 2050, the 
populations of 26 African countries are projected to expand to 
at least double their current size. To state it differently: 
During that same period, 1.3 billion of the globe's additional 
2.2 billion working-age people will be in Africa. If there is 
not a corresponding increase in jobs and economic opportunities 
to accompany this increase in population, then we are in 
trouble. We are going to have a hard time making sustainable 
progress with respect to development goals, and we are going to 
see grinding poverty that causes human suffering, promotes 
instability, and serves as a push factor for more migration 
crises.
    Mr. Dowd, how do you believe the African Development Bank 
can better work with the private sector to create the 
sustainable jobs that we need, and to lessen the predictable 
jobs crisis that would otherwise accompany the dramatic 
population growth in Africa?
    Mr. Dowd. Thank you, Senator. Certainly, this is a profound 
question.
    The focus of the Bank, of course, is on infrastructure. The 
notion is, of course, that, led by proper and effective 
infrastructure, private investment would follow, and, from 
that, hopefully employment, to begin to deal with this surging 
population that you alluded to. Not being in the Bank 
currently, I really cannot speak to the effective--
effectiveness of these programs, but I can tell you that I will 
be committed to a cost-benefit analysis, a rigorous cost-
benefit analysis, to, hopefully, gain control of these 
infrastructure projects so that they really work and they are 
not the proverbial road to nowhere.
    Senator Young. Is there a model you will be looking to, as 
you engage in cost-benefit analysis, to determine which 
programs are working, which ones are not? Perhaps you could 
mimic another module for another development bank, for example.
    Mr. Dowd. I do not have a lot of experience or knowledge of 
other development banks----
    Senator Young. Right.
    Mr. Dowd [continuing]. But I know, from private development 
projects, what I looked for. And there are triggers and 
effective yardsticks that can be brought to bear that I think 
might apply here. And I honestly cannot speak a heck of a lot 
farther about that at this point, not being on the ground.
    Senator Young. Your private-sector experience may even be 
more valuable, frankly, than having worked in, or spent time 
immersed in, development banks.
    Mr. Dowd. I hope so, sir.
    Senator Young. I attended a briefing last week on 
multilateral development banks. And a number of experts were 
present. And more than one of the individuals made the point 
that we have to make it easier for U.S. companies to compete 
for contracts with development banks, including the African 
Development Bank. According to our Congressional Research 
Service, despite our country's contributions to the Bank, U.S. 
firms accounted for only 0.4 percent of ADB procurement in 
2016. In contrast, Chinese firms accounted for over 22 percent 
of procurement in that same year.
    Mr. Dowd, do you believe there should be efforts to 
increase participation by U.S. firms in the African Development 
Bank? And, if so, how do you believe we can make it easier for 
U.S. companies to compete?
    Mr. Dowd. I--thank you very much, Senator--I would think 
this would be a good application for value-for-money bidding. 
That is to say, it is not always the lowest bid that is the 
best bid, but the way things often operate, it is that way. And 
so, the Chinese, that is their forte. Very low quality, cheap 
bidding. And so, perhaps, I hope, we can impose value bidding 
to help U.S. companies. In addition to helping U.S. companies.
    Senator Young. That is looking at the entire life cycle of 
the project, right?
    Mr. Dowd. Indeed, Senator. And another element that you 
allude to there is, perhaps even contingency payments for some 
of these longer-term loans to make sure they are not just 
wandering off into who knows where, so that there would be 
regular monitoring and accounting and auditing of ongoing 
project funding.
    As far as encouraging U.S. companies to invest and operate 
in Africa, you are exactly right, the percentage is appalling. 
And I will do what I can to be a cheerleader for Africa, I 
suppose, and to meet with, hopefully, and facilitate American 
businesses trying to do business in Africa.
    Senator Young. Thank you much, Chairman.
    Mr. Dowd. Thank you, sir.
    The Chairman.  Thank you.
    And thank all three of you for your willingness to serve, 
your families' willingness to be a part of that.
    The record will remain open until the close of business on 
Thursday, as you heard from the close of the first panel. To 
the extent you can answer those questions quickly, we would 
appreciate it. I know you all are anxious to get to the post 
you have been assigned.
    Again, I think, for all of us, it is heartwarming to have 
people like you who are willing to serve in these capacities. 
And we thank you for that. We thank you for your testimony 
today, and the preparation that went into it. And I look 
forward to you being confirmed.
    Thank you very much. The meeting is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
         Submitted to Eric M. Ueland by Senator James E. Risch

    Question 1. Article 25 of the 1961 Vienna Convention on Diplomatic 
Relations states that the ``receiving State shall accord full 
facilities for the performance of the functions of the mission.'' 
However, some host nations have imposed size restrictions on U.S. 
diplomatic pouches, which has limited the ability of U.S. missions to 
receive diplomatic pouches.

   Does the imposition of size restrictions on U.S. diplomatic pouches 
        entering a host nation constitute, in your view, contravention 
        of Article 25 of the Vienna Convention?

    Answer. I agree that size restriction on U.S. diplomatic pouches 
can have an impact on our overseas diplomatic facilities. If confirmed, 
I look forward to exploring this issue with the Department's legal 
experts and seeking ways to eliminate any burdens imposed on the 
Department's ability to do its business overseas.

    Question 2. Are there circumstances under which diplomatic pouches 
bound for a U.S. embassy should be subject to a host nation's 
inspection?

    Answer. As a general rule, I understand that diplomatic pouches are 
protected from search and inspection. If confirmed, I look forward to 
exploring this issue with the Department's legal experts and protecting 
the interests of the United States.

    Question 3. According to the U.S. State Department's own materials 
on diplomatic pouches, ``international law does not set any limits on 
the permissible size, weight, or quantity of properly designated 
diplomatic pouches.''

   What, in your view, is the appropriate U.S. response to a host 
        nation imposing limits on the permissible size, weight, or 
        quantity of properly designated diplomatic pouches?

    Answer. If confirmed, I look forward to consulting with the 
Department's experts to explore strategy and solutions as matters 
arise.

    Question 4. Under such circumstances, what course of action would 
you personally be willing to support in response to limitations?

    Answer. While I would need to review each case individually, if 
confirmed, I would be willing to explore the full range of options that 
have a reasonable possibility of motivating the counterpart government 
to lift its restrictions. I look forward to consulting with the 
Department's experts to explore strategy and solutions as matters 
arise.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Eric M. Ueland by Senator Benjamin L. Cardin

    Question 1. Regardless of the mechanism that the executive branch 
chooses, if the President wants to rescind or cancel funds that 
Congress has previously appropriated and the President has signed into 
law, Congress still must agree to cancel out or rescind those funds 
through enacting a subsequent law. As a longtime budget staffer and now 
having reviewed various impoundment procedures, is it your 
understanding that if Congress does not agree or act in some way to 
rescind or cancel funds, the executive branch agency must spend the 
appropriated funds within that fiscal year?

    Answer. The process as set out in the Impoundment Control Act is 
clear. The President must transmit a message to Congress proposing a 
rescission when he wishes to withhold appropriated funds from 
obligation permanently, or proposing a deferral for certain authorized 
purposes when the withholding of funds is temporary. Funds proposed for 
rescission may be withheld from obligation for 45 days of continuous 
congressional session. If the rescission is not enacted into law during 
this period, the President must release the funds on the 46th day.

    Question 2. Will you give us your commitment that, if confirmed, 
will you recommend to your superiors in the administration that the 
Department not seek rescission or cancellation of appropriated funds 
below the levels outlined in the applicable appropriations laws?

    Answer. I understand that use of the Impoundment Control Act 
process has been relatively rare, with President Clinton being the last 
President to propose a rescission with regard to a State Department 
appropriation. I would advise my principals to follow applicable 
appropriations laws and, if there is a strong reason to propose a 
rescission, to follow the statutory procedures under the Impoundment 
Control Act.

    Question 3. Should the President choose to seek to rescind or 
cancel funds that Congress has previously appropriated and which have 
been enacted into law, do you commit to communicate any such request to 
this committee and provide a briefing regarding the rationale for such 
a request?

    Answer. Yes, I commit to brief the committee on the rationale for 
any requests by the President to Congress for a rescission of State 
Department funds. As was discussed at my hearing, an important aspect 
of my work will be communication with the committee.

    Question 4. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In 1998, I worked on bringing to passage through the Senate 
the International Religious Freedom Act, which created the Office of 
International Religious Freedom at the Department of State. As the 
Department website outlines, among its other duties the Office carries 
out significant responsibilities including issuing an annual report on 
international religious freedom issues, advocacy on behalf of religious 
freedom in countries, and review of countries for potential religious 
freedom violations that could cause their listing as Countries of 
Particular Concern. The Act also created an ambassador-at-Large for 
Religious Freedom, and the United States Commission on International 
Religious Freedom.
    administrations. The level of focus on international religious 
freedom issues by the United States Government and the Department of 
State, and the work of the Foreign Service and the Commission on these 
issues, have been a worthy addition to the range of roles and 
responsibilities of the U.S. Government in advocating appropriately on 
behalf of our values around the world.

    Question 5. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 7. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I agree with the Secretary's recent speech, in which he 
stated that a strong, talented, representative workforce is essential 
for the Department's success. If confirmed, I will encourage mentoring, 
career development counseling, and active engagement with the 
Department's various, diverse employee constituencies. I will aim to 
ensure all our supervisors reflect the strengths of our nation and 
promote an inclusive merit-based culture that encourages collaboration, 
flexibility, and fairness.

    Question 8. What steps will you take to ensure each of the 
supervisors at the Department are fostering an environment that is 
diverse and inclusive?

    Answer. I agree with the Secretary's recent speech, in which he 
stated that a strong, talented, representative workforce is essential 
for the Department's success. If confirmed, I will encourage mentoring, 
career development counseling, and active engagement with the 
Department's various, diverse employee constituencies. I will aim to 
ensure all our supervisors reflect the strengths of our nation and 
promote an inclusive merit-based culture that encourages collaboration, 
flexibility, and fairness.

    Question 9. How do you plan on committing to the retention of 
diverse foreign and civil service employees while at the same time 
making drastic cuts and changes to personnel policy which are causing 
the attrition of diverse applicants?

    Answer. If confirmed, I will seek to ensure that any reduction in 
budget and personnel does not negatively affect the Department's 
diversity, inclusion, and retention efforts. I agree with the 
Secretary's recent speech, in which he stated that a strong, talented, 
representative workforce is essential for the Department's success. I 
will continue to apply resources to appropriate training, details and 
fellowship programs to help mid-level employees attain the career 
skills necessary for promotion into the senior ranks.

    Question 10. How do you intend to support civil service career and 
executive professional development programs that focus on diversity 
retention?

    Answer. If confirmed, I will seek to apply resources to appropriate 
training, details, and fellowship opportunities for the Civil Service 
workforce to provide invaluable professional development. The Secretary 
has publicly stated that the Department is a stronger organization when 
it embraces and incorporates diverse points of view into its work 
product. If confirmed, I will help the Department expand its mentoring 
and career development counseling services to assist employees develop 
the skills necessary for advancement while strengthening the leadership 
and adaptive capacity of our workforce.

    Question 11. If confirmed, will you commit to making sure the 
Department responds promptly to my letters and other requests for 
information?

    Answer. Yes. As I said in my hearing, having been a congressional 
staffer for many years I appreciate the need and the value for a robust 
conversation and partnership with this committee if I have the 
privilege of being confirmed.

    Question 12. Will you come before this committee for full, public 
hearings on the restructuring of State and USAID if major changes are 
proposed, prior to making such changes?

    Answer. Yes. As I said in my hearing, having been a congressional 
staffer for many years I appreciate the need and the value for a robust 
conversation and partnership with this committee if I have the 
privilege of being confirmed.

    Question 13. What is your view on the proposed cut to the State 
Department budget?

    Answer. I am confident the FY 2018 budget request will allow the 
Department to support the President's priorities to defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer. The 
Secretary has publicly acknowledged that the Department had to make 
tough decisions.
    I agree with the Secretary, who has stated publicly that it is 
first and foremost our people who will determine our ability to succeed 
in meeting our important foreign policy objectives--not the level of 
resources. I support the focus of the Secretary and Deputy Secretary on 
ensuring that our people have the organizational support and tools they 
need to achieve our top goals.

    Question 14. What is your view on the proposed cuts to the foreign 
assistance budget?

    Answer. I am confident that the FY 2018 budget request will allow 
the Department to support the President's priorities to defend national 
security, assert U.S. leadership, foster opportunities for U.S. 
economic interests, and ensure accountability to the U.S. taxpayer.
    I agree with the Secretary, who has stated publicly that it is our 
people first and foremost--not the level of resources--that will 
determine our ability to succeed in meeting our important foreign 
policy objectives. I support the Secretary and Deputy Secretary's focus 
on ensuring that State Department personnel have the organizational 
support and tools they need to achieve the administration's top goals.

    Question 15. More than 80 senior positions at the State Department 
currently have no named nominee. Many of those do not even have an 
Acting in place, and are vacant. I have shared my concerns in a letter 
to Secretary Tillerson about the ability of the State Department to 
effectively carry out its duties with so many unfilled positions. The 
Department has assured me that it is ``working closely with the White 
House to identify qualified candidates for [its] vacant senior 
leadership positions,'' yet acknowledged that there is ``no firm 
timeline for those remaining vacancies.'' As of today, there are no 
Assistant Secretary nominees for the Middle East, Asia, or Africa--at a 
time of daunting challenges and humanitarian crises in those regions. 
Nor is there an ambassador nominee to South Korea, at a time of 
increasingly tense relations with North Korea. If confirmed, do you 
commit to prioritizing filling senior vacancies, particularly for 
regions facing pressing challenges? How will you work with the 
Department and White House to ensure these positions are filled as 
promptly as possible?

    Answer. If confirmed, I commit to prioritizing the filling of 
vacant senior positions at the Department. This will include working 
with the Bureau of Diplomatic Security to ensure selected candidates 
move through the entensive vetting and clearance process in a timely 
manner.

    Question 16. One proposal under consideration as part of the 
administration's efficiency review process is to move the State 
Department's Consular Affairs and Population, Refugees, and Migration 
Bureaus to the Department of Homeland Security. I am pleased that 
Secretary Tillerson opposes this shift and believes this work is 
``essential to the Department's mission.'' Can you expand on why is it 
so critical for these functions to remain under State Department 
leadership?

    Answer. I agree with the Secretary's view that the Consular Affairs 
bureau belongs at the Department of State. The functions of the CA 
bureau are vital to the Department's mission to secure our borders and 
protect the American people. U.S. border security depends on a system 
of ``layered defense'' for maximum effectiveness, and the current 
system of vetting and adjudicating visas has built-in checks that 
strengthen our national security. The Population, Refugees, and 
Migration Bureau guides the entire resettlement process and determines 
which refugee populations can become eligible for consideration for 
resettlement in the United States. This determination is inherently a 
foreign policy function. Loss of this function by the Department would 
undercut the U.S. Government's ability to address international 
humanitarian crises and respond to the needs of key allies.

    Question 17. Please describe the redesign/reorganization process 
and the next steps.

    Answer. The redesign process has been employee led, to include 
35,000 State and USAID employees in the United States and around the 
world who shared views in listening sessions; 200 State and USAID 
employees who participated in the working groups; and numerous ideas 
and suggestions submitted through online portals. As I understand it, 
the Secretary recently submitted to the Office of Management and Budget 
an Agency Reform Plan with specific recommendations for improving State 
and USAID. The Department will now pivot toward preparing for 
implementation of reforms as soon as they are approved by OMB, as well 
as reforms not requiring OMB approval. If confirmed, I look forward to 
being briefed on these reforms and engaging the Congress to discuss 
them.

    Question 18. If confirmed, will you commit to regular consultations 
with this committee throughout the redesign process to ensure 
sustainable reforms to the State Department and our foreign assistance 
agencies?

    Answer. If confirmed, I commit to regular consultations with the 
Senate Foreign Relations Committee on the redesign.

    Question 19. How would you seek additional input from the broader 
stakeholder community?

    Answer. The redesign process began with listening to State 
Department and USAID employees. Additionally, it is my understanding 
that the State Department and USAID sought input from external 
stakeholders as part of the process. If confirmed, I would continue to 
seek input from stakeholders through continued engagement.

    Question 20. If confirmed, will you work to ensure that the 
Department's ability to carry out its mission is not hindered by the 
redesign process?

    Answer. The role and responsibility of the Under Secretary for 
Management is to support the Secretary and ensure effective operations 
of the Department. The Department has a workforce of over 14,000 
Foreign Service employees and 11,000 civil service employees, and an 
appropriated budget of nearly $56 billion for Fiscal Year 2017. If 
confirmed, I would work to help enhance recruitment, identify and focus 
talent, ensure smooth and successful operations, prepare budgets, and 
coordinate with the White House, OMB, and other departments and 
agencies with whom the Department collaborates to ensure a successful 
and fully engaged State Department both during the redesign process and 
as long as I would hold the position.

    Question 21. In your view, what redesign actions can the Secretary 
take administratively, without legislation?

    Answer. In light of not having been confirmed, I have not been a 
part of the redesign process, nor have I received any briefings on 
Secretarial authority. If confirmed, I am committed to working 
cooperatively with Congress and provide information and rationale and 
seek input and feedback on the redesign.

    Question 22. How do you plan to work with this committee and with 
Congress more broadly to approach reorganization matters? For changes 
that require legislative approval or action, with you submit draft 
legislation o this committee? Will the Department consult with Congress 
on changes that can be made administratively, without Congressional 
action? In my view, such consultation would foster broader support and 
sustainability for the redesign.

    Answer. If confirmed, I am committed to working cooperatively with 
Congress and provide information and rationale and seek input and 
feedback on the redesign. To the extent that legislation might be 
necessary, if confirmed I would support efforts here as well.

    Question 23. During his confirmation process, Deputy Secretary 
Sullivan noted that the reorganization effort should enhance 
coordination between regional and functional bureaus at the State 
Department to address transnational threats and new means of 
communication and technology. Could you share an example of a proposal 
under consideration to improve coordination between bureaus?

    Answer. In light of not having been confirmed, I have not been a 
part of the redesign process. If confirmed, I will certainly consult 
and discuss these efforts with Deputy Secretary Sullivan. Also, if 
confirmed, I look forward to working in partnership with Congress on 
the redesign effort.

    Question 24. Just last week, the GAO released a report reviewing 
the Department's Diplomatic Security operations since January 2017, and 
assessing its progress on outstanding recommendations. The report 
identified a number of remaining issues, including physical security 
weaknesses, ensuring U.S. personnel receive threat information in a 
timely and effective manner, and filling positions with experienced 
personnel. How do you plan to ensure that Diplomatic Security meets 
these ongoing challenges and addresses these outstanding 
recommendations, particularly at a time when the administration is 
seeking to shrink the Department's budget and resources?

    Answer. If confirmed, I plan to work closely with the Assistant 
Secretary for Diplomatic Security to ensure the Bureau of Diplomatic 
Security is being managed effectively and the challenges you outline in 
your question are being addressed. I expect to devote a significant 
amount of time on the safety and security of the Department of State's 
personnel, and will advocate for appropriate resources in order to 
ensure that our Foreign Service officers and personnel deployed around 
the world are in facilities that are safe, are able to safely execute 
their duties, and have the appropriate amount of security for 
themselves, their families and loved ones.

    Question 25. Do you commit to coming back before this committee if 
confirmed to address the outstanding issues facing the Diplomatic 
Security bureau?

    Answer. Yes. There is nothing more important than the safety and 
security of our staff here at the Department. The Bureau of Diplomatic 
Security is essential to keeping this mission, and to the overall 
mission of diplomacy. If confirmed, I look forward to continuing to 
engage Congress on the issues facing the Bureau.

    Question 26. If the Senate Appropriations Committee's proposal on 
the Foreign Operations bill gets approved, will you work to protect 
this budget of $51.2 billion in funding for the State Department and 
USAID as opposed to arbitrarily slashing it?

    Answer. If confirmed, I will work with Department of State and 
USAID leadership, bureaus, and offices to follow applicable laws and 
notification requirements with regard to the budget.

    Question 27. How would you ensure a reduction in funding for the 
State Department does not threaten our ability to address key national 
security challenges, such as the situation in Afghanistan?

    Answer. Enhancing and protecting the national security of the 
American people is the President's top priority. I am confident that 
the FY 2018 budget request will allow the Department to support the 
President's priorities to defend national security, assert U.S. 
leadership, foster opportunities for U.S. economic interests, and 
ensure accountability to the U.S. taxpayer. The Secretary has publicly 
acknowledged that the Department had to make tough decisions.
    If confirmed, I will work with the Bureau of South and Central 
Asian Affairs to ensure resources are available to promote the 
stability of Afghanistan and the entire region, which is critical to 
safeguarding U.S. national security.

    Question 28. If the State-Foreign Operations bill is confirmed, 
will you commit that any action you take related to the management or 
expenditure of appropriated funds is consistent with all legal 
requirements and the intent of Congress?

    Answer. Yes, as I said in my hearing, if confirmed, one of the 
important responsibilities I will have as the Undersecretary will be to 
ensure that the laws are faithfully executed by the Department.

    Question 29. I understand that as part of the Buy Hire America 
Executive order, changes which could substantially change the J-Visa 
programs are under consideration. What is your view on the value of the 
J-Visa programs? If confirmed, will you commit to continuing to support 
both federally-funded and private sector exchange programs as key 
elements of America's diplomatic engagement with the world? Can you 
assure me that, if confirmed and recommendations are made to eliminate 
or decrease the size of this program, the Department: a) notifies the 
appropriate Congressional committees and b) follows appropriate 
procedures and engages in a formal notice and comment in order to 
ensure stakeholder input and a fulsome record prior to making changes?

    Answer. Educational and cultural exchange programs are undeniably 
an important part of the State Department's diplomatic mission. The 
Department knows that they increase American global competitiveness, 
forge relationships and understanding, and contribute to increased 
national security. I can assure you that if I am confirmed we will 
continue to support our educational and cultural exchange programs in 
ways that best serve the needs of the American people. Also, if 
confirmed, as the Department considers ways to strengthen these 
programs, we will consult with Congress and stakeholders.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to Eric M. Ueland by Senator Marco Rubio

    Question 1. If you are confirmed as the Under Secretary of State 
for Management, you will be one of the officials responsible for the 
performance and health of the State Department's work force. There have 
been numerous press reports over the past six months on low morale in 
the Department. Do you believe that morale is low? If so, why? What do 
you intend to do to address the situation? Do employees feel like they 
understand the mission of the Department? Do they feel like the 
important work they do for our country matters?

    Answer. The Department of State is fortunate to have a talented and 
highly motivated workforce. I agree with the Secretary, who has 
publicly stated that the State Department's employees are its most 
valuable resource. As I understand the goal of the redesign process, it 
is for an employee-led process that will lay a new foundation for our 
diplomacy and development professionals to define America's leadership 
in the world for generations to come.
    You raise important questions. If confirmed, I will seek answers to 
these during my listenening sessions and meetings with stakeholders 
across the Department. Further, if confirmed, I will work to ensure 
that this process leads to an organization in which our people have the 
support and tools they need to achieve our foreign policy goals.

    Question 2. My understanding is that the State Department is the 
only Executive Branch agency that continues to have a hiring freeze and 
that it includes a freeze on promotions as well as lateral transfers. 
What is the rationale behind the continued hiring freeze? What is the 
Department doing to ensure that its best employees stay with the 
Department during a time of no upward or lateral movement? When do you 
expect the promotion and lateral freezes to end?

    Answer. If confirmed, I look forward working with the Secretary to 
further understand his vision on the hiring freeze policy and its 
correlation with the redesign project. My initial understanding is that 
this is a tool to ensure the Depmartent is hiring enw employees with 
the skill sets necessary to accomplish the State Departemnt mission in 
a challenging world environment. I believe employee-led reviews, 
starting with listening, is a great way to maintain a talented 
workforce.

    Question 3. It is my understanding that A-100 classes have re-
started, meaning that the hiring freeze now only applies to the Civil 
Service. Are you concerned that the Department is now treating its two 
largest groups of employees differently? Do you expect this to create 
tension within the Department between the Foreign Service and the Civil 
Service?

    Answer. If confirmed, I look forward to working with the Secretary 
to understand his vision for the hiring freeze policy, and what the 
path forward is. I agree with the Secretary, who has publicly stated 
that an organization's employees are its most valuable resource, and I 
will seek to relay my appreciation for the hard work of all the 
Department's employees--both Civil Service and Foreign Service.

    Question 4. The Presidential Management Fellows program is one of 
the best ways to get America's best-and-brightest graduate students 
into the Civil Service. Does the Department intend to continue 
participating in this program? Why or why not?

    Answer. As the Secretary said in his August 18th, 2017, remarks to 
student program participants, the Department's current fellowships are 
valuable pipelines of talent for the Department and necessary to 
achieving its diversity objectives. My understanding is that the 
Secretary has approved limited PMF hiring. If confirmed, I will do my 
best to ensure that PMFs continue to be recognized as an integral part 
of the Department's workforce.

    Question 5. My office has been a beneficiary of the State 
Department's participation in legislative fellows programs. I believe 
that these programs provide the Department with an invaluable insight 
into the legislative process, while also providing offices like mine 
with additional subject matter expertise. I was troubled to see reports 
that the Department is suspending its participation in the program. Can 
you confirm that the Department does not plan to participate in the 
program in 2018? Why or why not?

    Answer. The Secretary said in August that the Department will keep 
the fellowship and internship programs that advance the Department's 
goals and objectives. And, during my Senate visits, I was proud to meet 
several Pearson Fellows. If confirmed, I look forward to ensuring the 
Department continues this practice.

    Question 6. Florida is a significant beneficiary of the J-1 visa 
program. A Washington Post article on September 10, 2017, indicates 
that the program is under review and could potentially be limited. Is 
the J-1 visa program being reviewed? If so, who in the U.S. Government 
is reviewing the program? Why is the program being reviewed? When 
should the review process be completed? When do you expect J-1 visa 
applicants and employers to be notified of updated guidance on the 
program?

    Answer. Educational and cultural exchange programs are undeniably 
an important part of the State Department's diplomatic mission. The 
Department knows that they increase American global competitiveness, 
forge relationships and understanding, and contribute to increased 
national security. While the Department is currently undertaking a 
review of the program pursuant to the President's Executive Order on 
Buy American and Hire American, I can assure you that if I am confirmed 
we will continue to support our educational and cultural exchange 
programs in ways that best serve the needs of the American people. 
Also, if confirmed, as the Department considers ways to strengthen 
these programs, we will consult with Congress and stakeholders.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Eric M. Ueland by Senator Robert Menendez

    Question 1. I was extremely pleased that Secretary Tillerson 
acknowledged in a speech in August 2017 that the State Department has a 
``diversity gap.'' As I have previously flagged, Hispanic and Asian 
representation within the Department of State's workforce are at 6 
percent each; and although African Americans represent 15 percent of 
the total State Department workforce, they only represent 5 percent of 
the Foreign Service. Moreover, only 12 percent of our senior Foreign 
Service officers are non-white.

   What will you do to ensure the recruitment, retention, and 
        promotion to senior leadership of minorities within the 
        Department of State?

    Answer. In his recent speech, Secretary Tillerson said that a 
strong, talented, representative workforce which is representative of 
the American people is essential for the Department's success and the 
key to increasing minorities in leadership positions is to identify 
qualified individuals early in the process, and ensure that they are 
seeking and are afforded the opportunities to prepare for those senior 
roles. If confirmed, I will encourage mentoring, career development 
counseling, and active engagement with the Department's various, 
diverse employee constituencies. I will aim to ensure all our 
supervisors reflect the strengths of our nation and promote an 
inclusive merit-based culture that encourages collaboration, 
flexibility, and fairness.

    Question 2. The Charles B. Rangel International Affairs Program and 
Thomas R. Pickering Foreign Affairs Fellowship Program are integral to 
recruiting young, diverse talent to join our diplomatic corps, so I was 
concerned to find out that the June incoming class of Fellows were 
being deferred entry to the Foreign Service, because of the hiring 
freeze. Although, I understand that Secretary Tillerson has since 
issued a waiver for future incoming classes, I would like to know if 
you will continue to support these programs and ensure the continued 
successful recruitment and training of these future diplomats?

    Answer. If confirmed, I will continue to support these and other 
programs that ensure the Department follows the Secretary's charge in 
his recent speech to ensure that the Department appropriately reflects 
the diversity of America.

    Question 3. As was raised at your hearing, there have been numerous 
reports regarding the dire state of morale in the Department of State. 
Department staff have complained about a lack of cohesive policy, lack 
of leadership, and lack of communication between the Secretary's 
advisors and career diplomats.

   How will you work on increasing morale within the Department of 
        State and ensure our diplomatic corps is motivated and 
        empowered?

    Answer. The Department of State is fortunate to have a talented and 
highly motivated workforce. I agree with the Secretary, who has 
publicly stated that the State Department's employees are its most 
valuable resource. As I understand the goal of the redesign process, it 
is for an employee-led process that will lay a new foundation for our 
diplomacy and development professionals to define America's leadership 
in the world for generations to come. If confirmed, I will work to 
ensure that this process leads to an organization in which our people 
are empowered with the support and tools they need to achieve our 
foreign policy goals.

    Question 4. As I previously raised in a hearing with Deputy 
Secretary Sullivan, there are several recent policy changes that seem 
to be affecting morale negatively including a freeze on lateral 
movements in the Department (significantly limiting the career growth 
opportunities of civil servants), as well as a freeze on hiring 
eligible family members (EFMs) at overseas posts and hiring retired 
Foreign Service Offices to backfill critical positions.

   What is your position on these policies and would you support a 
        review or change of these recent policies?

    Answer. If confirmed, I look forward to working with the Secretary 
to understand his vision for the hiring freeze policy. I will support 
the Secretary in aligning the Department's staffing programs to 
strategically recruit, retain, and develop the workforce of the future. 
I will continue to work with the Secretary and the employees of the 
Department to ensure that their ideas are incorporated and encourage a 
culture where employees are empowered.

    Question 5. The Department of State has a handful of training/
detail assignments that are important professional development 
opportunities for Foreign and Civil Servants. These programs include 
obtaining graduate degrees, as well as working within other federal 
agencies, the military, and Congress, which makes Foreign and Civil 
Service Officers more effective and strengthens the agencies/
organizations in which they serve. As such, I was disappointed to find 
out that the Secretary was considering significantly reducing and/or 
ending these opportunities.

   As Under Secretary of State for Management will you ensure that 
        these important professional development opportunities are 
        continued? How do you plan to ensure the continued development 
        of the diplomatic corps?

    Answer. If confirmed, I will ensure that professional development 
continues to be a priority. Developing a workforce that is responsive 
to the threats of today and tomorrow requires continued investment in 
their training and professional development and is one of my top 
priorities.

    Question 6. I appreciated your commitment during your nomination 
hearing to ``consult with Congress'' on the reorganization/redesign 
process, because I have serious concerns regarding the process of 
implementation. In particular, beyond the ``listening tour'' and 
working groups used to inform the initial modifications, how do you 
plan to socialize the organizational changes within the Department of 
State?

    Answer. Secretary Tillerson and Deputy Secretary Sullivan have been 
very clear that the redesign effort is employee led. In addition to the 
listening tour, more than 200 State Department and USAID employees took 
part in the working groups. In addition, I understand that the 
Secretary and Deputy regularly communicate various milestones in the 
process to the Department's employees, meet with Embassy staffs, and 
engage in town halls. If confirmed, I would respect and reinforce the 
employee-led nature of the redesign process and similarly engage with 
the Department's employees.

    Question 7. As was raised during your hearing, there are many high-
level positions within the Department of State that have yet to be 
filled and are critical to the successful operations of our diplomatic 
mission, including the Director General of Human Resources. How will 
you encourage the administration to nominate and fill these positions 
in a timely fashion?

    Answer. If confirmed, I commit to prioritizing the filling of 
vacant senior positions at the Department. This will include working 
with Diplomatic Security to ensure any selected candidates move through 
the extensive vetting and clearance process in a timely manner.

    Question 8. We are concerned about reports that there are efforts 
to consolidate decision-making power within the Department, 
specifically in the Office of Policy Planning that is staffed with non-
Senate confirmed officials. This would undermine the role of the Deputy 
Secretary and Under Secretary for Political Affairs that are Senate-
confirmed positions and hold critical roles within the Department. Will 
you ensure that individuals responsible for final decisions on specific 
policies, budget, funding disbursement, and anything else related to 
implementing major foreign policy objectives of the United States will 
be made by principals who have been confirmed by the Senate?

    Answer. While many individuals in the Department provide valuable 
advice, the Secretary of State is responsible for decisions made on 
implementing major foreign policy objectives.
    The Department has a deep bench of experienced professionals 
serving in key positions across the Department who are highly capable 
and help the Secretary lead the Department and advance U.S. interests 
worldwide.

    Question 9. I was pleased you highlighted the importance of 
cybersecurity as one of your priorities as Under Secretary, because I 
was seriously concerned by reports that the Department was considering 
closing the Office of the Coordinator for Cyber Issues. The recent 
Department of State/Foreign Operations Appropriations Bill for FY 2018, 
specifically allocated funding for this office, because of its 
indisputable importance given the growing use of cyberwarfare, 
including the Russian attack against the United States in the last 
Presidential election. Can you confirm that you will ensure the Office 
of the Coordinator for Cyber Issues is preserved under the 
reorganization? Also, what other strategies will you propose to 
strengthen our ability to combat cyberwarfare?

    Answer. It is my understanding that there are a variety of 
initiatives already underway to address issues of cybersecurity. While 
I have not been briefed on the specifics of the disposition of the 
office of the Coordinator for Cyber Issues, if confirmed, I commit to 
reinforcing those efforts and elicit additional recommendations to 
strengthen the Department's cybersecurity and defend against cyber 
attacks.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to Eric M. Ueland by Senator Ron Johnson

    Question 1. Often, there is a wide gulf between U.S. foreign policy 
actions and how they are perceived around the world. The resulting 
anti-Americanism has a toxic effect on the United States' ability to 
secure our vital interests globally--a problem that has been compounded 
by the neglect of our public diplomacy programs since the end of the 
Cold War. Thankfully, one aspect of U.S. public diplomacy that has been 
maintained is our international exchange programs. I know the 
administration is considering curtailing some of these programs as part 
of its State Department review. As Undersecretary of State for 
Management, you will be involved in the fate of these exchanges. What 
is your view of their value to U.S. foreign policy? Specifically, do 
you believe that International Military Education & Training (IMET) 
funding is vital to achieving U.S. foreign policy goals? Do you support 
continuing the Summer Work Travel (SWT) exchange program?

    Answer. If confirmed, I pledge to consult with Department experts 
to learn more about these programs and their value to U.S. foreign 
policy. I agree with you on the value of exchanges generally in 
fostering engagement and dialogue. If confirmed, I will work to ensure 
that the overall budget request concentrates resources where they offer 
the most value and impact to U.S. national security and foreign policy 
priorities.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Eric M. Ueland by Senator Jeanne Shaheen

    Question 1. Mr. Ueland, when I asked you about the potential for 
the administration to use ``impoundment'' to enforce budget cuts, which 
goes against the Impoundment Control Act of 1974, you replied that 
``the Budget Act talks about two different ways monies can be looked at 
by the executive.'' I'm assuming you were alluding to rescissions and 
deferrals. Given your experience on the Senate Budget Committee, could 
you explain, with detail, the circumstances under which an 
administration would be in violation of the Impoundment Control Act? 
What procedures would an administration need to follow in order not to 
be in violation of the Act?

    Answer. My answer may have been a bit rusty--I cannot recall the 
last time I discussed impoundment before your question in the hearing. 
I have reviewed the issue and found that in general, the Impoundment 
Control Act of 1974 (ICA) provides for specific procedures with respect 
to potential impoundments, including the submission by the President of 
a special message to Congress each time a permanent rescission of 
budgetary resources is proposed and each time funds are deferred as 
provided for under the ICA. The circumstances under which such a 
message would be submitted to Congress would have to be addressed on a 
case-by-case basis.

    Question 2. At the end of our discussion, you mentioned that the 
``implementation [of impoundment] might fall in your lane.'' Could you 
explain what you meant? How, and under what circumstances, would you 
administer the impoundment of funds at the Department of State?

    Answer. As I discussed at the hearing, throughout my preparation 
for confirmation no one has approached me about anything in relation to 
impoundment. Questions at the committee were the first time the topic 
has been raised to me. To the extent if carrying out such a 
hypothetical instruction touches any of the bureaus or offices in the 
portfolio of the Undersecretary for Management, it ``might fall in [my] 
lane,'' and that's what I meant.
    During my hearing, I stated that no one has approached me about 
anything in relation to impoundment, so I have no information as to 
how, or under what circumstances, I would administer such hypothetical 
impoundment of funds at the Department of State, if such execution 
would touch on the operation of any of the bureaus or offices in the 
portfolio of the Undersecretary for Management.

    Question 3. Would you describe, in detail, the difference between 
routine administrative actions and delays and impoundments? Please use 
examples.

    Answer. While I cannot comment on hypothetical scenarios, I do 
believe that issues related to administrative actions and delays and 
impoundments depend on the specific facts and circumstances. If 
confirmed, I would seek to ensure that the Department obligates funding 
appropriated by Congress consistent with applicable law, including the 
Impoundment Control Act of 1974.

    Question 4. Could you please detail your interpretation of the 1975 
Supreme Court case, Train v. City of New York, which is referenced in 
the report to the FY18 State, Foreign Operations Appropriations 
Subcommittee bill? What impact did this case have on the President's 
``power of impoundment?''

    Answer. I am not in a position to provide an interpretation of this 
specific Supreme Court decision. If confirmed, I would seek to ensure 
that the Department obligates funding appropriated by Congress 
consistent with applicable law, including the Impoundment Control Act 
of 1974.

    Question 5. Mr. Ueland, referring back to your testimony, is there 
a legal difference between instructing someone to impound funds and 
implementing an order to impound funds?

    Answer. The Impoundment Control Act of 1974 sets forth the required 
procedures for the proposed rescission or deferral of funds. Beyond 
that, no one has raised impoundment with me, beyond the questions 
raised at the hearing.

    Question 6. If confirmed, will you commit that any action you take 
related to the management or expenditure of appropriated funds is 
consistent with all legal requirements and the intent of Congress?

    Answer. If confirmed, I commit that any action I take related to 
the management or expenditure of appropriated funds will be consistent 
with applicable law, including the Impoundment Control Act of 1974.

    Question 7. In response to Ranking Member Cardin's question about 
whether you would respond promptly and fully to committee requests, you 
began by saying you ``expect to respond promptly and fully to all 
requests,'' and went on to say, ``unless [you're] told by higher 
authorities not to.'' Mr. Ueland, you are nominated to fill one of only 
six Under Secretary positions at the State Department. The Under 
Secretary for Management, in particular, is a prestigious position with 
vast authorities. Your predecessor regularly came to Capitol Hill to 
brief Senators and staff. Could you please clarify which ``higher 
authorities'' you expect may prevent you from answering requests from 
Capitol Hill? When you answered this question, what issues came to mind 
as topics that may require a higher authority to tell you not to 
respond to a committee request?

    Answer. I have an interest in a strong partnership with the Senate 
and Congress, including participating in regular discussions with 
Senators and staff on matters that fall within the portfolio of the 
Undersecretary for Management.
    In the event of my confirmation, while carrying out my 
responsibilities and working cooperatively with the Senate and 
Congress, I will also be looking to the Secretary and Deputy Secretary. 
They are the ``higher authorities'' I referenced. What came to mind as 
I answered that question was not any issue, but the knowledge that 
working in partnership with Congress is a key objective, and both the 
Secretary and Deputy Secretary have the capacity to set direction and 
provide guidance and feedback to me as I carry out all elements of my 
work, including with Congress. I believe that both the Secretary and 
Deputy Secretary have told the Senate Foreign Relations Committee of 
their interest in working with Congress, as have I. I look forward to 
carrying out our shared commitment.

    Question 8. In your testimony, you note that ``the security of 
staff and facilities overseas remains an issue.'' If confirmed, will 
you ensure that the department continues to spend at least $2.2 billion 
annually for new embassy construction and maintenance, as recommended 
by the Benghazi Accountability Review Board? Please explain whether you 
believe the $2.2 billion figure properly reflects the Department's 
needs with regard to these expenses in the coming years.

    Answer. The security of staff and facilities overseas is of 
paramount importance, as recognized in the President's FY 2018 budget 
request of $2.2 billion for new embassy construction and maintenance. 
If confirmed, I will support the administration's commitment to 
sustaining a robust budget for embassy security and maintenance 
consistent with the recommendations of the Benghazi Accountability 
Review Board.

    Question 9. This week, the State Department submitted its 
``redesign'' recommendations to OMB, outlining proposed reforms to the 
State Department and USAID in response to the President's March 
executive order directing a reorganization of the executive branch. 
Does the State Department plan to submit this report to Congress? If 
so, when?

    Answer. In light of not having been confirmed, I have not been a 
part of the redesign process. If confirmed, I am committed to working 
cooperatively with Congress and provide information and rationale and 
seek input and feedback on the redesign. Further, I will encourage the 
Department to provide reguarl updates to Congress on the issue.

    Question 10. Mr. Ueland, the post of Director General of the 
Foreign Service has been vacant since the last DG, Arnold Chicon, left 
on June 2, 2017. It is currently being filled in an acting capacity by 
the Human Resources Principal Deputy Assistant Secretary, William E. 
Todd, who is a former ambassador to Cambodia and a member of the Senior 
Executive Service, but not the Senior Foreign Service. According to 
law, he is ineligible to be nominated by the President to be a 
permanent replacement. Also according to this law, a Senior Foreign 
Service officer must be in place to advise the Secretary on personnel 
matters. The need for such professional advice is great as the 
Department carries out planning for a major reorganization. While the 
Department is weighing the Trump administration's reorganization plans, 
if confirmed, who do you and Secretary Tillerson intend to go to for 
advice on Foreign Service personnel matters in the absence of a Senate-
confirmed Director-General? When do you believe a replacement for 
Chicon will be nominated?

    Answer. I share your interest in filling the position of Director 
General of the Foreign Service as soon as possible. If confirmed, I 
will ensure that the Department continues to work closely with the 
White House on this and other senior leadership positions. The 
Department has a deep bench of experienced career professionals that 
are highly capable and able to lead the Department and advance U.S. 
interests worldwide such as Principal Deputy Assistant Secretary Todd, 
a career Senior Executive Service Civil Servant and two-time 
ambassador. He is assisted by two career Senior Foreign Service Officer 
Deputy Assistant Secretaries and a career Senior Executive and can tap 
into the experience and expertise of a number of senior Foreign Service 
Officer colleagues, including Under Secretaries and Assistant 
Secretaries.

    Question 11. Mr. Ueland, if confirmed, your office also will 
oversee foreign missions in the United States. Are there conditions 
under which the Russians could re-gain access to the facilities that 
they recently lost access to in the United States? Can I have your 
commitment that you will notify Congress and in particular, the Senate 
Foreign Relations Subcommittee on USAID and State Department 
Management, of any change in this regard?

    Answer. If confirmed, I look forward to consulting with the 
Department's experts to consider options on strategy and solutions. I 
hope to move forward to achieve the stated goal of both of our 
countries: improved relations and increased cooperation on areas of 
mutual concern. If confirmed, I commit to informing Congress of any 
developments.

    Question 12. If confirmed, will you commit to working closely with 
the FBI to help notify them (in a timely fashion) of Russian officials 
seeking clearance to travel within the United States?

    Answer. If confirmed, I will continue the Department's commitment 
to interagency cooperation. I look forward to working very closely with 
the FBI on the travel of Russian officials within the United States.

    Question 13. If confirmed, will you work with the future Assistant 
Secretary of Europe and Eurasia, as well as the future U.S. Ambassador 
to the Russian Federation, to ensure that any limitations or 
restrictions U.S. diplomats experience in Russia will be met with 
parity for Russian diplomats in the U.S.?

    Answer. If confirmed, I will work with my colleagues, including the 
Department's Office of Foreign Missions which I will oversee, to 
consider reciprocity prior to extending privileges and benefits to the 
foreign missions in the United States, including that of Russia. I look 
forward to fully supporting, encouraging, and enhancing the use of 
reciprocity to improve the secure and efficient operation of our 
missions abroad.

    Question 14. My office has received calls from career officials at 
the Department of State complaining that the Office of Civil Rights is 
often inappropriately used as a tool to discipline civil service 
employees who aren't engaged in discriminatory behavior. Harassment or 
discrimination based on age, sex, gender, race, religion, or ethnicity 
is a serious matter and should be dealt with immediately. Any deviation 
from this Office's core responsibilities to encourage a safe and 
diverse workforce is concerning. If confirmed, will you work with the 
Secretary of State to look into these complaints and ensure that the 
Office of Civil Rights is elevating cases involving employees who have 
been discriminated against for their age, sex, gender, race, religion, 
or ethnicity, rather than being used as an arbitrary disciplining tool?

    Answer. The Department of State's Office of Civil Rights (S/OCR) 
serves an integral role in propagating equity, fairness, and inclusion 
at the Department. S/OCR is charged with processing complaints of 
discrimination from U.S. citizen employees, former employees, and 
applicants for employment based on race, color, religion, sex 
(including pregnancy, gender identity, and sexual orientation), 
national origin, age (40 or older), retaliation, disability, or genetic 
information. S/OCR also oversees the Department's compliance with anti-
harassment laws and policies. In order to preserve the integrity of the 
workplace and ensure that the Department meets its obligations under 
the law, the attorneys in S/OCR conduct harassment training, manage 
harassment reporting, and conduct harassment investigations to ensure 
that all allegations of sexual and discriminatory harassment are 
properly addressed. S/OCR is a neutral office and does not make any 
discipline decisions with respect to complaints of discrimination or 
harassment complaints. Per Department policies (3 FAM 1525--Anti-Sexual 
Harassment Policy, 3 FAM 1526--Discriminatory Harassment Policy, 3 FAM 
4300--Disciplinary Action (Including Separation for Cause)), discipline 
decisions are made by the Bureau of Human Resources. S/OCR has no role 
in any discipline decisions for any employees. If confirmed, I will 
ensure that S/OCR continues to carry out its important mission in 
accordance with Department policies.

    Question 15. What are your views of the dissent channel at the 
Department of State, and if confirmed, how will you ensure the 
integrity of this channel?

    Answer. I am fully committed to the Dissent Channel as enshrined in 
the Department's Foreign Affairs Manual (FAM). For over forty years, 
the Dissent Channel has served as a vehicle for U.S. citizen State 
Department employees to express dissenting or alternative views on 
substantive issues of policy to the Department's most senior leadership 
without fear of penalty. It exists because the State Department has a 
strong interest in facilitating open, creative, and uncensored dialogue 
on substantive foreign policy issues within the professional foreign 
affairs community and a responsibility to foster an atmosphere 
supportive of such dialogue. Pursuant to the FAM, Dissent Channel 
messages, including the identity of the authors, are a most sensitive 
element in the internal deliberative process and are to be protected 
accordingly.

    Question 16. As you consider ways to achieve efficiency as part of 
the Department's redesign, wouldn't it be more efficient to have a 
single budget shop that includes the Office of U.S. Foreign Assistance 
Resources (F) and the Bureau for Budget and Planning? What are the 
options under consideration for streamlining these two entities? Would 
they report to you?

    Answer. The redesign process has been employee led, including 
35,000 State and USAID employees in the United States and around the 
world who shared views in listening sessions; 200 State and USAID 
employees who participated in the working groups; and numerous ideas 
and suggestions submitted through online portals. As I understand it, 
the Secretary recently submitted to the Office of Management and Budget 
an Agency Reform Plan with specific recommendations for improving State 
and USAID. The Department will now pivot toward preparing for 
implementation of reforms as soon as they are approved by OMB, as well 
as reforms not requiring OMB approval. If confirmed, I look forward to 
being briefed on these reforms and engaging the Congress to discuss 
them.

    Question 17. The State Department has taken a number of steps in 
recent years to make U.S. foreign assistance more transparent and thus, 
more effective. One of these is the creation of a public website 
managed by the State Department--ForeignAssistance.gov--where the 
taxpayer can review how and where the U.S. is spending foreign aid 
dollars. Every federal agency that provides foreign assistance funding 
is required to share its information on this website. What is the 
agency participation rate for the site? What agencies lag behind in 
sharing their data, and what is the reason for the delay in sharing 
this information with U.S. taxpayers? What is the status of the State 
Department's own data on this site?

    Answer. If confirmed, I will work with the Office of Foreign 
Assistance to help the Department meet the requirement of the Foreign 
Aid Transparency and Accountability Act of 2016 that all implementing 
agencies report their foreign assistance to ForeignAssistance.gov by 
the end of FY 2018. I believe that the Department of State takes 
seriously its responsibility for making data on foreign assistance 
financial activities public, and I will work to continue to make 
progress on implementing its Foreign Assistance Data Review initiative.

    Question 18. I was pleased that the State Department issued an 
Evaluation Policy in January 2015 encouraging all bureaus and 
independent offices to undertake at least one evaluation per year ``to 
achieve the most effective U.S. foreign policy outcomes and greater 
accountability to our primary stakeholders, the American people.'' 
However, the quality of State's evaluations varies and it's unclear how 
learning from these evaluations is used to guide the agency program and 
budget decisions. What are your plans to ensure that the evaluation 
policy is carried out, especially related to security assistance 
programs?

    Answer. If confirmed, I will seek to ensure that the Department 
follows an effective and useful evaluation policy. Accountability to 
the American taxpayer is a core priority for this administration, and 
evaluations are critical to holding ourselves accountable.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Eric M. Ueland by Senator Johnny Isakson

    Question 1. The outcome of the ongoing discussion about the 
redesign of the State Department and USAID is very important to me. 
Will you commit to engaging with my staff and me as that process moves 
forward?

    Answer. Yes. As I said in my hearing, having been a congressional 
staffer for many years I appreciate the need and the value for a robust 
conversation and partnership with this committee and its members if I 
have the privilege of being confirmed.

    Question 2. In the event that the redesign requires Congressional 
authorization, will you commit to working with me to flesh out whatever 
reforms are proposed?

    Answer. Yes, and I look forward to engaging with you on this 
effort.

    Question 3. In April 2016, the U.S. State Department asked Emory 
University Hospital to accept and treat a patient, an American non-
profit employee working abroad, with Lassa fever. Emory responded and 
successfully treated the patient. However, Emory has $356,000 in 
outstanding bills that the Government seems to be unwilling to 
reimburse. In May 2017, Emory sent a letter to Sec. Tillerson and has 
yet to receive a response. Can I have your commitment to work with me 
to resolve this issue and to ensure that in the event that any hospital 
is asked to treat a patient suffering from a highly infectious disease 
by the U.S. Department of State that they are then reimbursed for their 
treatment costs?

    Answer. If confirmed, you have my commitment to work with you on 
this issue. I understand that the U.S. Government has important 
partners in the private sector, such as Emory University Hospital, for 
treatment and care of patients with highly-infectious diseases. I will 
seek to maintain that partnership while ensuring that the Department 
assists to the extent of its statutory authority.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Eric M. Ueland by Senator Jeff Merkley

    Question 1. There are wide-spread reports that are uncertainly 
about the reorganization, and budget and staffing cuts are creating low 
morale at the Department of State. If confirmed, how do you plan to 
address talent retention so that an attrition-based reduction does not 
result in State losing its best and brightest employees?

    Answer. The Department of State is fortunate to have a talented and 
highly motivated workforce. I agree with the Secretary, who has 
publicly stated that the State Department's employees are its most 
valuable resource. As I understand the goal of the redesign process, it 
is for an employee-led process that will lay a new foundation for our 
diplomacy and development professionals to define America's leadership 
in the world for generations to come. If confirmed, I will work to 
ensure that this process leads to an organization in which our people 
have the support and tools they need to achieve our foreign policy 
goals.

    Question 2. If confirmed, what specific steps will you take to work 
with Congress on any reorganization plans for the State Department and 
USAID?

    Answer. Yes. As I said in my hearing, having been a congressional 
staffer for many years I appreciate the need and the value for a robust 
conversation and partnership with this committee if I have the 
privilege of being confirmed.

    Question 3. If confirmed, in your role overseeing Human Resources, 
how to you plan to attract new talent, address talent retention and 
increase diversity recruitment?

    Answer. I agree with the Secretary's recent speech, in which he 
stated that a strong, talented, workforce representative of the 
American people is essential for the Department's success. If 
confirmed, I will ensure that the Department continues its active 
recruitment program to bring talented and diverse candidates to the 
Department. I look forward to continuing the Department's commitment to 
the Pickering and Rangel Fellowship programs. Ultimately, the 
Department's ability to recruit and retain a talented and diverse 
workforce will rest on ensuring the redesign process results in an 
organization in which our people have the support and tools they need 
to achieve our foreign policy goals.

    Question 4. If confirmed, do you commit to working with Congress to 
communicate the State Department's efforts to promote equal opportunity 
and inclusion for all American employees in direct hire and personal 
service contractor status to include equal opportunity for all races, 
ethnicities, ages, genders, and service-disabled veterans, with a focus 
on traditionally underrepresented minority groups?

    Answer. If confirmed, I commit to continuing the Department's 
efforts to promote equal opportunity and inclusion for all American 
employees and contractors, and to work with Congress to communicate 
these efforts. I believe that the Department takes seriously its 
obligation to be a ``model employer'' of individuals with disabilities, 
as required by U.S. law.

    Question 5. If confirmed, will you continue to support professional 
development programs, including details, educational programs, and 
fellowships?

    Answer. If confirmed, I will seek to apply resources to appropriate 
training, details, and fellowship opportunities for the Department's 
workforce that provide invaluable professional development. These 
programs are an integral part of ensuring that employees have the 
skills necessary for current and future work assignments.

    Question 6. If confirmed, do you pledge to provide detailed 
information to Congress on diversity employment statistics that include 
data on ethnicity, race and gender by grade and occupational code for 
civil service personnel and Foreign Service promotion statistics by 
ethnicity, race and gender?

    Answer. If confirmed, I commit to provide information to Congress 
on diversity employment statistics to the extent permitted by law. I 
understand that the Department's website provides some diversity 
statistics as well as information on Foreign Service promotions.

    Question 7. If confirmed, will you provide information on how many 
positions are unfilled and how long they have been unfilled by Bureau 
and Office and the reasons why they haven't been filled?

    Answer. If confirmed, I commit to prioritizing the filling of 
vacant senior positions at the Department and ensuring the Department 
continues to work closely with the White House to identify qualified 
candidates for those vacant leadership positions. I commit to informing 
Congress on the Department's efforts to fill vacant positions.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to Eric M. Ueland by Senator Cory Booker

    Question 1. It was reported in a recent Wall Street Journal article 
that several State Department managed J-1 visa exchange programs--
including Summer Work Travel, Au Pair, Intern, Trainee, and Camp 
Counselor--are under review by the Department and White House as part 
of the President's Buy Hire American, Hire American Executive Order. In 
New Jersey, we had 10,642 recipients of the J-1 visa exchange program, 
half of those went to work in Jersey's tourism industry that would have 
experienced shortages or negative impacts on their businesses without 
this resource. At the same time, these individuals go back to their 
home countries with a favorable view of the U.S. extending at a low 
cost, U.S. diplomacy and cultural ties.
    As Under Secretary of State for Management, you will oversee the 
agencies process and procedures. I understand that as part of the Buy 
American and Hire America Executive Order, changes which could 
substantially change the J-Visa programs are under consideration.

   I would like your assurance that if recommendations are made to 
        eliminate or decrease the size of this program, that the 
        Department notifies the appropriate Congressional committees 
        and follows appropriate procedures and engages in a formal 
        notice and comment in order to ensure stakeholder input and 
        develop a fulsome record prior to making changes. Can you give 
        me your assurances that this will be done?

    Answer. Educational and cultural exchange programs are undeniably 
an important part of the State Department's diplomatic mission. The 
Department knows that they increase American global competitiveness, 
forge relationships and understanding, and contribute to increased 
national security. I can assure you that if I am confirmed we will 
continue to support our educational and cultural exchange programs in 
ways that best serve the needs of the American people. Also, as I said 
in my hearing, having been a congressional staffer for many years I 
appreciate the need and the value for a robust conversation and 
partnership with this committee if I have the privilege of being 
confirmed.

    Question 2. Since traveling to embassies and meeting with our 
diplomats, I hear repeatedly that one of the greatest diplomatic tools 
they have people-to-people exchange that support global engagement that 
is critical to our country's prosperity and security. Exchange programs 
are not only an important State Department tool to promote American 
foreign policy, the programs also position our citizens to capitalize 
on an increasing globalized world.

   Do you have any personal experience with international exchange?

    Answer. I value the important role that dialogue and exchange can 
play. While I have not personally been involved in an international 
exchange program, if confirmed I look forward to being briefed on 
current exchange programs and how we are using them to advance U.S. 
foreign policy goals.

    Question 3. Can you commit that the State Department will advocate 
to keep as many tools at your disposal to reach different audiences, 
rather than cutting off some of your options?

    Answer. If confirmed, I will work to ensure that the overall budget 
request concentrates resources where they offer the most value and 
impact to U.S. national security and foreign policy priorities. 
Maintaining flexibility and options will be an essential consideration 
in the budget and management process.

    Question 4. As you may know earlier this year Pickering and Rangel 
Fellows who completed their coursework and internships were told by the 
State Department that they would not be inducted into the Foreign 
Service as scheduled. These are the two premier programs that bring our 
nation's diversity in all its forms--ethnic, linguistic, socio-
cultural, experiential, and many more--to bear in support of our 
foreign policy.
    After Congressional pushback, the Department relented and said that 
the classes would be issued a waiver and allowed to join the next 
Foreign Service class. In a recent speech, Secretary Tillerson said, 
``Our current fellowships and internships are valuable pipelines of 
talent for our organization and necessary to achieving our diversity 
objectives,'' and that the Department ``will be keeping all of our 
fellowship and internship programs in place.''

   I am pleased to hear this though I find it hard to square what the 
        Department's previous actions. Will the Department continue to 
        induct future Rangel and Pickering Fellows in the Foreign 
        Service as scheduled? If not, why not?
   Do you plan to make any changes to these Congressionally-authorized 
        programs and do you pledge to consult with Congress before 
        doing so?

    Answer. If confirmed, I will work to ensure the Department of 
State's commitment to the Pickering and Rangel programs as its premier 
diversity recruitment programs. The Department must continue to value 
these talented individuals and the skills they bring into the 
Department, and I anticipate no changes to the programs. As the 
Secretary recently stated, the Department has a long-standing and 
enduring commitment to shape and build a more diverse and inclusive 
organization.

    Question 5. For the State Department and USAID to carry out their 
missions, diversity is an urgent matter of national security 
implications. Our nation is blessed with an unparalleled strength in 
having people of all backgrounds and experiences. Thus having a Foreign 
Service that represents the full richness of the American people as we 
conduct our diplomacy and development efforts allows us to connect with 
a diverse world in unique and meaningful ways.
    However, the State Department has much work to do. Latino/Hispanic 
and Asian representation within the State Department's workforce are at 
6 percent each and while African Americans represent 15 percent of the 
workforce, they only represent 6 percent of the Foreign Service.

   What do you think the State Department can do to improve these 
        numbers and how can we better retain and elevate diverse 
        leaders into more senior positions in the Department?

    Answer. I agree with the Secretary's recent speech, in which he 
stated that a strong, talented, representative workforce is essential 
for the Department's success. If confirmed, I will ensure that the 
Department continues its active recruitment program to bring talented 
and diverse candidates to the Department, including the use of 
Diplomats-in-Residence hosted at universities across the country. I 
will also ensure that the Department continues its commitment to the 
Pickering and Rangel Fellowship programs. For retention purposes, I 
will encourage mentoring, career development counseling, and active 
engagement with the Department's various, diverse employee 
constituencies. If confirmed, I aim to ensure all our supervisors 
reflect the strengths of our nation and promote an inclusive merit-
based culture that encourages collaboration, flexibility, and fairness.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to John R. Bass by Senator Marco Rubio

    Question 1. Defeating the Afghan Taliban will continue to be 
difficult so long as it has a sanctuary on the other side of the border 
in Pakistan. Do you support drone strikes against the Afghan Taliban, 
regardless of what side of the border it occupies?

    Answer. The United States employs a full range of options--
including military and diplomatic ones--to resolve this conflict. 
Military action is not the centerpiece of our strategy. Our efforts in 
Afghanistan are part of a larger regional strategy. That said, we will 
exert pressure against the Taliban, wherever they might be, using all 
elements of national power. If confirmed, I will support full 
implementation of the President's strategy, including its military 
components, to ensure the Taliban no longer believes it can wait us 
out.

    Question 2. How do you assess the National Unity Government? Is it 
stable? Do you see the structure--with both a President and CEO--as 
something that the U.S. should continue to encourage?

    Answer. President Ghani and Chief Executive Abdullah share a common 
vision for a secure, stable, and prosperous Afghanistan and are working 
to bring the reforms needed to advance this vision.
    In recent months, both of Afghanistan's leaders have shown in their 
words and actions that their working relationship is more effective and 
increasingly producing results. Both expressed their determination to 
support one another's efforts to implement reforms and live up to their 
commitments.
    It is a government that largely defends itself and has a reformist 
president willing to work closely with international partners.
    It is up to the Afghan people to decide the future structure of 
their government, including whether or not to retain the President and 
CEO positions.

    Question 3. Do you believe that the Afghan Government should seek a 
negotiated settlement with the Taliban? If yes, what ``redlines'' 
should the U.S. Government insist upon?

    Answer. A negotiated peace settlement between the Afghan Government 
and the Taliban is critical to ending the conflict and ensuring the 
long-term preservation of our national security interests. We have 
signaled to the Afghan Government and others our priority to launch a 
peace process, and we regularly engage Afghanistan's neighbors to press 
the Taliban to come to the negotiating table.
    The U.S. Government has clearly outlined the broad conditions of an 
acceptable agreement to end the conflict, which would require the 
Taliban to cease violence, break all ties to international terrorists, 
and accept the Afghan Constitution, including its protections for women 
and minorities. These end-conditions are necessary to protect the gains 
achieved over the last 16 years.
    I believe there is an opportunity to make a fresh push to start a 
peace process in light of the fact we are no longer announcing any 
artificial deadline for the withdrawal of U.S. troops from Afghanistan. 
The primary obstacle to a peace process is the Taliban's confidence it 
can outlast us on the battlefield, and indeed, much of this confidence 
in years past came from the group's awareness of our withdrawal 
deadlines. We can therefore use the President's new South Asia strategy 
to make a stronger argument to the Taliban that we will never allow 
them to win militarily, and that a negotiated political settlement is 
the only viable path for them.
    I personally plan to be a firm advocate for setting the conditions 
to achieve a political settlement with my interlocutors across the 
Afghan political spectrum.

    Question 4. The State Department's 2017 Trafficking in Persons 
Report upgraded Afghanistan from the Tier 2 Watch List to Tier 2. Do 
you commit to discuss consistently with senior Afghan Government 
leaders the U.S. Government's concerns about trafficking in persons?

    Answer. We remain committed to working closely and consistently 
with the Government of Afghanistan to combat trafficking in persons in 
all its forms. The Afghan Government made marked progress over the past 
year, by enacting a new law on human trafficking that distinguishes 
between smuggling and trafficking, and that criminalizes various acts 
associated with bacha baazi, a practice in which men exploit boys for 
social and sexual entertainment. Since passage of the law, the Afghan 
Government has arrested and punished some officials found complicit in 
bacha baazi.
    However, there are still several areas of concern, including 
official complicity, accountability for abuses, and a shortage of 
protective services for victims of trafficking. If confirmed, I will 
lead the embassy's engagement with Afghan Government leaders on this 
issue, and we will continue to work with human rights organizations and 
civil society and to support the Afghan Government in its efforts.



                               __________


      Responses to Additional Questions for the Record Submitted 
             to John R. Bass by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting democratic governance and adherence to core human 
rights have been priorities and core responsibilities for me throughout 
my career. Much of my work has focused on supporting a core national 
security goal of the United States, under administrations of both 
parties, for three generations: promoting a Europe that is whole, free 
and at peace. In that regard, several of my assignments at State 
Department headquarters in the 1990s focused on supporting efforts of 
countries that aspired to join the NATO alliance to build and 
strengthen the rule of law, democratic institutions, and competitive 
electoral environments.
    While serving in Embassy Rome, I worked closely with Italian trade 
unions and civil society organizations to encourage them to provide 
additional support to nascent counterparts in Cuba as part of a broader 
effort to strengthen Cuban civil society. As an advisor to Vice 
President Cheney in 2004-05, I concentrated on reinforcing diplomatic 
efforts to create a competitive campaign environment and impartial 
election administration for the November 2004 presidential election in 
Ukraine. After evidence of widespread fraud was revealed, I helped 
mobilize like-minded NATO and other partners to push the Ukrainian 
Government to address the fraud, which resulted in a revote, which 
produced a more free and fair election and a different outcome.
    While leading the Provincial Reconstruction program for Baghdad 
province 2008-09, I oversaw efforts to underwrite development of modern 
legal curricula for the Baghdad University law School, and professional 
development and training programs for the defense bar, strengthening 
legal protections and the rule of law for Iraqi citizens.
    As Ambassador to Georgia, I strongly supported and ensured funding 
for training programs to strengthen political party development, 
election administration, independent media and civil society 
organizations. I also worked closely with a wide range of government 
officials and political party leaders to ensure opposition parties and 
candidates were able to campaign without interference or pressure. 
These efforts contributed to 2012 parliamentary elections that led to 
the first peaceful official transfer of power between political parties 
in contemporary Georgia's history.
    In my current role as Ambassador to Turkey, I have encouraged 
adherence to constitutional norms and Turkey's international 
commitments under the U.N. Charter and Helsinki Final Act to address 
restrictions and erosion of freedoms of speech and assembly. I have 
criticized the Government's increased criminalization of speech and 
pressure on independent media and continued to strongly support 
religious minorities and protect their ability to worship freely.

    Question 2. What are the most pressing human rights concerns in the 
Afghanistan today? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in 
Afghanistan? What do you hope to accomplish through these actions?

    Answer. Our greatest human rights concern in Afghanistan today 
continues to be the actions and consequences of the ongoing insurgency: 
its effects on access to education, health, and justice, and the 
challenge of building and sustaining adherence to human rights norms by 
government security forces as they combat the insurgency.
    The Taliban and ISIS actively target schools, media outlets, 
government and aid workers, human rights activists, and ethnic and 
religious minorities. We also continue to receive credible reports of 
human rights abuses committed by government actors, including security 
forces.
    If confirmed, I will urge the Afghan Government to increase its 
efforts to address these abuses. We will assist the Afghan Government 
in upholding human rights and eventually ending abuses by partnering 
with our Afghan colleagues in the security and justice sectors to 
ensure they have the requisite capacity and expertise needed to prevent 
abuses, and to ensure accountability should they occur. As one 
component of this effort, we will continue to provide human rights 
training for government security forces and we will engage quickly with 
the Afghan Government when abuses do occur to ensure that there is full 
and transparent justice. We will also continue to work with Afghan 
civil society and with our allies and other partners to advocate for 
improvements in human rights. My hope is that our combined efforts over 
time will provide Afghans the opportunity to further strengthen 
democratic governance and human rights protections because they believe 
them to be in their national interest.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Afghanistan in 
advancing human rights, civil society and democracy in general?

    Answer. There are significant obstacles to progress, including 
widespread violence, ethnic tension, weak application of the rule of 
law, government capacity challenges, a climate of official impunity, 
and the absence of government writ in many areas of the country. The 
challenges facing us are significant, but we work closely with the 
Afghan Government, and Afghanistan has made some important progress 
over the past 16 years. Perhaps most important at this juncture, the 
Afghan Government tells us these issues are important to their 
performance and legitimacy, and they are actively seeking our help to 
improve. If confirmed, I will lead our engagement and work to support 
the Afghan Government in its continued efforts.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Afghanistan?

    Answer. If confirmed, I will lead and direct the embassy's 
engagement with human rights, civil society, and other non-governmental 
organizations in the U.S. and with human rights organizations in 
Afghanistan, as I have in my prior appointments to Turkey and Georgia.

    Question 5. Will you and your embassy team actively engage with 
Afghanistan to address cases of key political prisoners or persons 
otherwise unjustly targeted in Afghanistan?

    Answer. If I am confirmed, we will continue to engage with the 
Afghan Government on such cases, and will continue to voice our strong 
support for the Afghan constitution, adherence to the rule of law, and 
due process.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If I am confirmed, we will continue to thoroughly vet all 
individuals and units nominated for U.S.-funded security assistance, in 
accordance with the Leahy law. If we find credible information of a 
gross violation of human rights, we will take the necessary steps in 
accordance with the law, to ensure that responsible parties do not 
receive U.S. funded assistance, and will work with the Afghan 
Government to bring them to justice. We will also work with the Afghan 
Government to identify cases where individuals have been brought to 
justice in order to remediate units restricted from receiving 
assistance.

    Question 7. Will you engage with the Afghans on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will lead the embassy's continued 
engagement on a wide range of issues centered on human rights, civil 
rights, and governance. As a result of engagement by USG personnel 
serving in Embassy Kabul, the Afghan Government has made human rights 
training a key component of training for security force personnel. It 
also is making legal reforms to address issues facing vulnerable 
populations, such as the enactment of the Law to Combat Crimes of 
Trafficking in Persons and Smuggling of Migrants in January 2017, 
which, for the first time, criminalizes various acts associated with 
bacha bazi, including sexual exploitation of a minor and forced 
dancing. Our continued engagement will support further progress by the 
Afghan Government.

    Question 8. What will you do to build people-to-people ties between 
Americans and Afghans and to support Afghan civil society, human rights 
activists, and independent media? What do you need from Washington-
based U.S. officials on this?

    Answer. U.S. Embassy Kabul implements a robust array of public 
diplomacy initiatives that strengthen academic and professional 
relationships between Afghans and Americans. If confirmed, I will lead 
our Embassy's engagement with civil society, human rights activists, 
and independent media. One of my early priorities will be to assess and 
improve our engagement strategy to ensure it is supporting fully our 
efforts to achieve the objectives outlined in the President's new South 
Asia Strategy. We will look to many elements of the U.S. Government, 
including Congress, for continued support to ensure our exchange and 
other programs of this nature are effective and achieving the intended 
results.

    Question 9. What is your understanding for the conditions under 
which the U.S. could begin to diminish its military presence in the 
country?

    Answer. As President Trump explained in his August 21 address to 
the American people, a core pillar of the new South Asia Strategy is a 
shift from a time-based approach, to one based on conditions on the 
ground. He was clear about our objective in Afghanistan, which is to 
make Americans safer. A premature withdrawal risks creating a vacuum 
that terrorists would exploit, as they did on 9/11.
    The President was also clear that military power alone will not 
bring peace to Afghanistan. Rather, ``strategically applied force'' can 
``create conditions for a political process to achieve a lasting 
peace.'' The mission of our troops in Afghanistan is to apply force in 
order to make clear to the Taliban that they cannot achieve their 
objectives on the battlefield and must instead enter negotiations with 
Afghan Government.
    President Trump has delegated to the Secretary of Defense the 
authority to determine the level of troops necessary to achieve this 
mission. I would refer you to the Department of Defense for a 
description of the military conditions under which those troops might 
be drawn down.

    Question 10. What ways do you see to ramp up U.S. engagement in the 
peace and reconciliation process? How will you personally involve 
yourself?

    Answer. A negotiated peace accord with the Taliban is critical to 
ending the conflict, stabilizing Afghanistan and protecting our core 
national security interests. We have signaled to the Afghan Government 
and others our priority is to launch a peace process. We regularly 
engage Afghanistan's neighbors to press the Taliban to come to the 
negotiating table.
    The broad outlines of an acceptable agreement to end the conflict 
would require the Taliban to cease violence, break all ties to 
international terrorists, and accept the Afghan Constitution, including 
its protections for women and minorities. These end-conditions are 
necessary to ensure the gains achieved over the last 16 years are 
protected.
    I believe there is an opportunity to make a fresh push to start a 
peace process in light of the fact we are no longer announcing any 
artificial deadline for the withdrawal of U.S. troops from Afghanistan. 
Many observers have noted that the primary obstacle to a peace process 
is the Taliban's confidence it can outlast us on the battlefield, and 
indeed, much of this confidence in years past came from the group's 
awareness of our withdrawal deadlines. We can therefore use the 
President's new South Asia strategy to make a stronger argument to the 
Taliban that we will not allow them to win militarily, and that a 
negotiated political settlement provides them the best opportunity to 
achieve some of their objectives.
    I plan to firmly advocate for increased reliance on politics and 
negotiations, rather than violence, to address a range of challenges in 
Afghanistan. I intend to continually seek opportunities to lay the 
groundwork for a peace process with interlocutors across the Afghan 
political spectrum.

    Question 11. The U.S. has engaged in a series of efforts, dating 
back to the Tokyo commitments, to incentivize Afghan reforms through 
our assistance programming. How is the recently announced Kabul Compact 
any different from these past efforts? Why does the administration 
expect that the behavior of the Afghan Government will be any 
different?

    Answer. Unlike the Tokyo Mutual Accountability Framework and other 
donor-driven commitments of the past, the Kabul Compact is an Afghan-
led initiative. President Ghani proposed the Compact in his April 2017 
meeting with General McMaster as a way to hold the Afghan Government 
accountable. In the words of President Ghani, the primary purpose of 
the Compact is to ``restore trust'' in the Afghan Government and 
demonstrate to the Afghan public, the American public, and the 
international community that the Afghan Government is ``serious about 
making lasting reforms.''
    The Compact consists of reform benchmarks in four areas: 
governance, security, the economy, and peace and reconciliation. 
Working groups co-chaired by American and Afghan officials developed 
these benchmarks to measure progress over the next three years, and 
President Ghani has signed an official decree instructing all relevant 
ministries to implement and comply with the Compact's directives. He 
has also urged the working groups to provide monthly progress reports 
and, as appropriate, make those reports public. This frequent 
coordination with our Afghan counterparts will allow us to monitor more 
closely what the Afghan Government is doing and calibrate our diplomacy 
and foreign assistance accordingly.

    Question 12. Please describe how you will diplomatically engage 
with Russia and the countries of Europe to urge more active 
participation in efforts to address poppy cultivation in Afghanistan.

    Answer. We share Congress's concern regarding Afghanistan's 
unacceptably high level of opium cultivation and lack of eradication. 
Opium poppy production in Afghanistan undercuts good governance, fuels 
corruption, provides revenue to terror and militant groups, and 
undermines our national interests in Afghanistan and more broadly in 
South and Central Asia. The two greatest impediments to successful 
opium poppy eradication are insecurity and a lack of political will on 
the part of the Afghan Government. Eradication is politically 
unpopular, given the absence of a range of high-value alternative crops 
as well-suited to Afghanistan's poor soils and transport networks. 
Eradication operations have turned violent, resulting in deaths of both 
the Afghan security forces conducting the eradication and local farmers 
opposing eradication.
    Most areas of high cultivation, such as Helmand province, are 
either under Taliban control or influence, complicating the Afghan 
Government's eradication efforts in areas where it does not effectively 
exercise control. Without improved security, eradication is likely to 
remain at unacceptably low levels.
    The State Department takes very seriously the challenge posed by 
narcotics production in and trafficking from Afghanistan and is working 
with DEA and DOD to finalize an updated U.S. Counternarcotics Strategy 
for Afghanistan. Measures to generate Afghan political will to increase 
eradication will be a key component of this review. We will also 
explore possible options for engaging with Russia, Canada, and 
countries of Europe, all major markets for Afghan heroin, on how to 
address the challenges of curbing the Afghan opium trade. This 
engagement can be both bilateral and through multilateral fora, such as 
the Paris Pact Initiative. Given constraints imposed by both the 
security situation and reduced funding for USG counternarcotics 
programs in Afghanistan, the group will look to target key districts in 
high poppy producing areas of Afghanistan for best effect. The 
Department shares deep concerns over the continued upward trend in 
opium poppy cultivation in Afghanistan.

    Question 13. I am very concerned about accountability for funds 
provided through the World Bank's Afghan Reconstruction Trust Fund 
(ARTF). What specific measures will you put in place to ensure that the 
World Bank is providing the U.S. taxpayer with the necessary 
information to ensure that these funds meet U.S. accountability 
standards?

    Answer. The Department of State and USAID take very seriously the 
responsibility to ensure that U.S. taxpayer dollars are spent wisely in 
support of U.S. national security objectives. We are working with the 
World Bank and other ARTF donors to identify ways to expand the scope 
and intensity of ARTF management and oversight mechanisms. This 
includes stronger results frameworks and more extensive use of third-
party project and resource disbursement monitoring. We are also looking 
at ways to strengthen communication between the World Bank and ARTF 
donors through regular portfolio reviews and more detailed results 
scorecards. Furthermore, USAID is working closely with the United 
Kingdom's Department for International Development (DFID) and other 
major ARTF donors on the fourth external evaluation review of the Fund. 
We will continue to conduct additional evaluations of the ARTF, as 
necessary, to ensure that U.S. taxpayer funds are used for the 
development purposes for which they are intended.

    Question 14. SIGAR recently found that U.S. programming to promote 
Afghanistan's revenue generation through customs collection has been 
significantly deficient. Given that Afghanistan's best prospects for 
revenue generation appear to come in this sector, how do you plan to 
address this significant shortcoming? How will you work to encourage 
the Afghan authorities to tangibly improve their ability to address 
corruption at the border crossings and increase domestic revenue?

    Answer. The Department of State, USAID, and the Afghan Government 
all agree that an electronic payment system would be an effective 
method for reducing corruption at customs checkpoints and collecting 
the additional revenue that the Government needs. President Ghani and 
CEO Abdullah are committed to increasing usage of the e-payment system, 
and since 2013 USAID's Afghanistan Trade and Revenue (ATAR) project has 
sought to improve the capacity of the Afghan Government to collect 
customs revenue through the system. The e-payment system is a module 
within the Automated System for Customs Data (ASYCUDA), a software 
system developed by the United Nations Conference on Trade and 
Development and used in many countries' customs facilities. ASYCUDA has 
significantly reduced customs clearance times (from several days to 
several hours) and increased customs revenue.
    Mission Afghanistan is addressing the issues with e-payment 
identified in the SIGAR report, including working with the Ministry of 
Communications on an E-Transaction Law and speeding the transfer of 
funds from Afghanistan's national bank, Da Afghanistan Bank (DAB), and 
commercial banks to government workers and other designated recipients. 
However, broader efforts to reduce customs corruption are likely to 
have the greatest impact on future revenue collection. For example, 
overly sensitive risk profiles are resulting in nearly all cargo being 
flagged at the borders--far too many to actually be inspected--
providing opportunities for corruption to expedite clearance. The 
Afghanistan Customs Department is in the process of adjusting those 
profiles and procedures at the borders to improve system reliability 
and reduce corruption.
    If confirmed, I will continue to engage President Ghani, Chief 
Executive Abdullah and other senior Afghan Government officials to 
ensure they sustain their focus on reducing corruption and improving 
further revenue collection by the Government.
    Finally, it is worth noting that SIGAR's report examined only one 
of many focus areas that were part of the ATAR project. As of July 
2017, ATAR had spent an estimated $559,803 out of the $77.8 million 
project ceiling for ATAR (approximately 0.7 percent) to support the 
implementation of e-payment technology. Other facets of ATAR have 
achieved significant results, including helping the Afghan Customs 
Department improve its risk management system to align it with 
international standards, supporting Afghanistan's accession to the 
World Trade Organization (WTO) in 2016, and facilitating negotiations 
on trade and transit agreements with regional trading partners.

    Question 15. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service? What steps will you 
take to ensure each of the supervisors at the Embassy are fostering an 
environment that is diverse and inclusive?

    Answer. My experience has given me many opportunities to build 
high-functioning teams with diverse members. I remain committed to 
equal employment opportunity principles. If confirmed, I will foster a 
work environment that recognizes the contributions of all employees, 
and will make sure they have information available about the 
Department's Diversity and Inclusion Strategic Plan, foreign affairs 
affinity organizations and opportunities specific to various groups.
    If confirmed, I will encourage all supervisors to take available 
courses on EEO principles, diversity, and related issues. I will urge 
them to include unconscious bias and similar topics when they mentor 
junior colleagues. I will direct supervisors to transparently and 
fairly provide opportunities to all entry- and mid-level professionals. 
By providing time for professional development discussions to address 
diversity, I will highlight that this is a priority for me as the 
Ambassador.

    Question 16. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 17. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 18. Do you or do any members of your immediate family have 
any financial interests in Afghanistan?

    Answer. Neither I, nor any members of my immediate family have any 
financial interests in Afghanistan.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to John R. Bass by Senator Robert Menendez

    Question 1. The Special Inspector General for Afghanistan 
Reconstruction continues to issue reports that regularly highlight 
ongoing serious challenges the United States faces in our efforts to 
support Afghans rebuild their country. What steps will you take to 
ensure accountability and transparency in U.S. programs that directly 
support the Afghan Government?

    Answer. The Department of State and USAID take seriously the 
responsibility to ensure accountability and transparency for U.S. 
taxpayer dollars. We provide the vast majority of our direct support to 
the Afghan Government through the World Bank's Afghanistan 
Reconstruction Trust Fund (ARTF). A large share of this assistance is 
conditions-based. Through the U.S.-Afghan New Development Partnership 
(NDP), the Afghan Government can receive up to $200 million each year 
for meeting mutually agreed-upon reform benchmarks. The World Bank also 
manages the ARTF Incentive Program, which conditions donor assistance 
to the Afghan Government on the achievement of public financial 
management and fiscal policy reforms.
    The World Bank uses a variety of monitoring tools, such as results 
frameworks and third-party monitors, to oversee the use of donor funds. 
U.S. Government officials meet regularly with World Bank staff in Kabul 
and Washington on the ARTF. We are working with the World Bank and 
other ARTF donors to identify ways to expand the scope and intensity of 
ARTF management and oversight mechanisms. Furthermore, USAID is working 
closely with the United Kingdom's Department for International 
Development (DFID) and other major ARTF donors on the fourth external 
evaluation review of the Fund. We will continue to conduct additional 
evaluations of the ARTF, as necessary, to ensure that U.S. taxpayer 
funds are used for the development purposes for which they are 
intended.
    Direct government-to-government assistance constitutes only a small 
percentage of the assistance we provide to Afghanistan. Before 
implementing such programs, USAID undertakes an extensive risk 
assessment, known as a Public Financial Management Risk Assessment 
Framework (PFMRAF), to determine whether the ministry or entity has the 
systems and controls necessary to effectively manage U.S. government 
funds. After completion of the risk assessment for a ministry, USAID 
also performs its own internal risk review. Ultimately, a system of 
safeguards is in place to ensure transparency and oversight of U.S. 
funds before USAID programs are implemented and funds are disbursed.

    Question 2. Given the extreme limitations on movement of State 
Department and USAID personnel due to security concerns, what steps 
will you take to ensure effective oversight of USG programs throughout 
the country?

    Answer. As the May 31 bombing just outside Kabul's international 
zone reminded us, Afghanistan is and will remain a dangerous place for 
U.S. diplomats and development specialists. At the same time, we 
recognize the importance of closely monitoring our programs in 
Afghanistan to ensure the appropriate and effective use of our 
assistance funding in this difficult operating environment. The 
Department of State and USAID have developed an innovative, multi-
tiered monitoring approach for civilian assistance and public diplomacy 
programs in Afghanistan that utilizes multiple sources of information, 
including third-party monitors, reporting by implementing partners, and 
input from Afghan Government and civil society members, among others, 
to inform programmatic decision-making. This monitoring information 
allows the United States to expand programs that are working well and 
to terminate or adjust programs that are not achieving results. When 
appropriate, we have changed course to refocus resources on more 
productive programs that have a greater demonstrated impact on 
Afghanistan's development.

    Question 3. Over the past few years, we have seen Iran more boldly 
assert regional presence, including in Afghanistan. How do you evaluate 
the evolving relationship between Iran and the Taliban? What do you see 
as Iran's intended outcome with increased activity and operations in 
Afghanistan? Is Iran's goal to continue simply destabilizing 
Afghanistan?

    Answer. As Afghanistan's neighbor, Iran has an interest in Afghan 
security and stability. Iran is one of the top exporters of goods into 
Afghanistan, and is attempting to enhance its cultural and strategic 
connections with Afghan Shi'a in western and central Afghanistan. Iran 
has actively recruited thousands of Afghans to fight in Syria, both 
within the refugee population and inside the Shia population in 
Afghanistan, using a combination of religious, financial, or residency 
incentives.
    We encourage Iran, and all of Afghanistan's neighbors, to fully 
support the Afghan Government and to put pressure on the Taliban to 
enter peace talks. However, the drawdown of international forces, 
political instability in Afghanistan, and the transition of U.S. 
administrations have led Iran to continue its hedging activity with the 
Taliban--ostensibly to combat ISIS' presence in the country. Iran has 
also been vocal about its opposition to the U.S. military presence in 
Afghanistan.
    Despite reports that Tehran maintains links to the Taliban, Iran 
continues to profess support for an Afghan-led peace process and 
participates in regional fora on Afghanistan.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to John R. Bass by Senator Todd Young

    Question 1. In your prepared statement, you mention the ``Kabul 
Compact,'' also known as the ``Afghan Compact,'' a set of benchmarks 
for reforms developed by President Ghani and Chief Executive Abdullah. 
These benchmarks reportedly address governance, security, peace and 
reconciliation, and economics. In an interview in late August, General 
Nicholson said, ``There are literally hundreds of milestones and 
benchmarks that the Afghans have agreed to meet.'' Both you and General 
Nicholson say that the Afghan Government has asked us to hold them 
accountable to these commitments. If confirmed, working with General 
Nicholson, do you commit to providing periodically to this committee 
and my office a detailed, specific, and written unclassified assessment 
of where the Afghan Government is falling short on these commitments 
and how Kabul plans to address these shortcomings?

    Answer. As I have done during my service as Ambassador to Georgia 
and now as Ambassador to Turkey, I look forward to engaging with 
Congress on questions regarding our assessment of host government 
actions to meet bilateral commitments made with the United States.
    I look forward to working with General Nicholson to encourage the 
Afghan Government to continue making progress on their stated 
obligations in the Kabul Compact, and intend to remain in close 
communication with Congress regarding the breadth of our relationship 
with Afghanistan.



                               __________


           Responses to Additional Questions for the Record 
            Submitted to John R. Bass by Senator Cory Booker

    Question 1. To what extent do you agree with Afghan officials' 
assessment that Pakistan is one, if not the, crucial impediment to 
stability in Afghanistan?

   Has Pakistan played a constructive role in Afghanistan in your net 
        assessment? If not, what are Pakistan's strategic 
        considerations for its approach, and how, if at all, can U.S. 
        action change that?

    Answer. The administration believes that stabilizing Afghanistan is 
in the interest of all countries in the region, including Pakistan. If 
confirmed as ambassador, I will work with Ambassador Hale in Islamabad 
to promote the efforts of the administration to encourage all of 
Afghanistan's neighbors to support an Afghan-led, Afghan-owned 
political reconciliation process, which is the most viable path to end 
the conflict in Afghanistan.
    Relations between Afghanistan and Pakistan have been particularly 
strained since early this year following a spate of terrorist attacks 
in both countries, with each blaming the other for harboring and 
supporting the attackers.
    To overcome these tensions, more engagement between Afghanistan and 
Pakistan on items of mutual interest is crucial. Recent high-level 
visits between both countries have been an important step. Pakistan's 
Foreign Secretary recently visited Kabul for a productive high-level 
diplomatic dialogue, with further senior level engagements planned in 
the months ahead. In addition, senior Pakistani and Afghan military 
officials recently met in Kabul and agreed to formulate an action plan 
to improve border security with coordinated actions. The administration 
welcomes these renewed efforts and supports intensification of 
dialogue.
    The Governments of Pakistan and Afghanistan should redouble their 
standing commitment to deepen counterterrorism cooperation against all 
groups that pose a long-term security threat to both countries. 
Pakistan has been an important partner in combating anti-State 
terrorist groups, such as the Pakistani Taliban, al-Qa'ida, and ISIS in 
South Asia. Pakistan needs to disavow, and deny safe haven to, 
terrorist organizations that target its neighbors. Pakistan has much to 
gain from partnering with our efforts in the region, including the 
facilitation of a peace process that will lead to a stable, peaceful 
Afghanistan, the defeat of ISIS in South Asia, and the elimination of 
terrorist groups that threaten both Pakistan and the United States.

    Question 2. Do you consider the reportedly growing role of Russia 
and Iran in Afghanistan a strategic threat to the U.S.? Why or why not? 
Why would these former Taliban opponents now support the group?

    Answer. Both Iran and Russia have mixed records in Afghanistan, 
which is a matter of concern. Especially in recent years, as the ISIS 
threat has grown, both countries have pursued hedging strategies that 
include modest support for the Taliban. We expect that our new South 
Asia strategy, with its clear commitment to Afghanistan, will temper 
this hedging behavior.
    As Afghanistan's neighbor, Iran has an interest in Afghan security 
and stability. Iran is one of the top exporters of goods to 
Afghanistan, and is attempting to enhance its cultural and strategic 
connections with Afghan Shi'a in western and central Afghanistan. Iran 
has actively recruited thousands of Afghans to fight in Syria, both 
within the refugee population and inside the Shi'a population in 
Afghanistan, using a combination of religious, financial, or residency 
incentives.
    We encourage Iran, and all of Afghanistan's neighbors, to fully 
support the Afghan Government and to put pressure on the Taliban to 
enter peace talks. Despite reports that Tehran maintains links to the 
Taliban, Iran continues to profess support for an Afghan-led peace 
process and participates in regional fora on Afghanistan.
    Similarly, Russia has expressed an interest in Afghan security and 
stability. While Russia maintains diplomatic ties with the Afghan 
Government it has also been vocal about its opposition to the U.S. 
military presence in Afghanistan. We have called on Russia to fully 
support the Afghanistan Government and efforts to ensure safety and 
stability within its borders. We continue to encourage Russia to expand 
discussions on how we might cooperate to support Afghanistan and to 
foster a peace process between the Afghan Government and the Taliban.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Justin Siberell by Senator Marco Rubio

    Question 1. The 2011 Bahrain Independent Commission of Inquiry 
(BICI), an independent outside review commission, issued 26 
recommendations to hold the Government accountable for its suppression 
of the 2011 uprising. How many of those recommendations has the 
Government implemented? If confirmed, how do you plan to encourage the 
Government to fully implement all of the recommendations?

    Answer. For a thorough analysis of Bahrain's implementation of the 
BICI recommendations, please refer to the Department of State's report 
corresponding to the Bahrain section of Senate Report 114-79, delivered 
to the Senate on June 21, 2016. In the time since publishing that 
report, we have noted new and continued restrictions on the existence 
and operation of political societies, restrictions on free expression, 
assembly, and association; and lack of due process in the legal system. 
We have repeatedly voiced concern about these issues and urged the 
Government of Bahrain, at the highest levels, to reinvigorate its 
reform program, make the political system more inclusive, and rebuild 
trust between the Government and citizens. If confirmed, I will 
continue to urge the Government of Bahrain to take steps to ensure 
inclusive elections in 2018 and to advance reform efforts for the 
benefit of Bahrain's long-term security and our mutual interests in 
regional stability.

    Question 2. Over the past year, Bahrain has dramatically cracked 
down against human rights defenders, civil society, and peaceful 
leaders in the opposition. Specifically, they banned the country's 
largest opposition party, have not fulfilled the 26 recommendations of 
the Bahrain Independent Commission on Inquiry (BICI) report that the 
King publicly committed to implementing, and reversed the few BICI-
related reforms they had implemented. If confirmed as U.S. Ambassador 
to Bahrain, how will you encourage the Government of Bahrain to respect 
the basic human rights of its citizens and implement genuine political 
reforms?

    Answer. These are Bahraini challenges that will require Bahraini 
solutions, but Bahrain's partners can also be supportive of the 
process. If confirmed, I will encourage reform, reconciliation, and 
respect for rights in Bahrain, and these issues will be at the center 
of my engagement with the Government and people of Bahrain.

    Question 3. Bahrain is ranked 164th out of 180 countries in 
Reporters sans Frontieres (RSF) 2017 World Press Freedom Index, falling 
into the ``black zone'' in the past year. RSF notes that there are 
currently 14 journalists in prison in Bahrain. The Bahraini Government 
has intensified its censorship efforts against foreign journalists 
deemed critical of the Government, including denying accreditation, 
restricting visas, and blocking news websites. If confirmed, what role 
can you and the U.S. Government play in ensuring the Government 
respects freedom of press and freedom of expression? Do you commit to 
raising press freedom violations with Bahraini authorities?

    Answer. We regularly raise concerns about restrictions on the 
press, freedom of expression, and other human rights issues with the 
Government of Bahrain. If confirmed, I will ensure that we continue to 
have an open and honest dialogue with Bahrain on the full range of 
issues affecting our bilateral relationship, including these. A free 
and independent press allowed to peacefully voice a wide spectrum of 
views plays a vital role in inclusive, pluralistic governments and 
societies.

    Question 4. Nabeel Rajab is a prominent human rights activists who 
is currently in prison on charges related to tweets and a television 
interview. On July 10, 2017, the State Department put out a statement 
expressing their disappointment for the sentencing of Mr. Rajab and 
urging the Government of Bahrain to ``abide by its international 
obligations and commitments to respect human rights and fundamental 
freedoms, including the freedom of expression.'' What is your plan for 
dealing with the Bahraini authorities when it comes to freedom of 
expression and politicized trials like those of Nabeel Rajab? If 
confirmed, do you commit to raising the case of Nabeel Rajab as well as 
other political prisoners and urge the Government to unconditionally 
release him and others? If confirmed, do you commit to providing my 
office with regular updates on Embassy Manama's efforts to press for 
Nabeel Rajab's release as well as other political prisoners?

    Answer. We were disappointed by the July 10 verdict sentencing 
Nabeel Rajab to two years in prison. I understand he could face an 
additional 15 years in prison for tweets he made that were critical of 
Bahrain's involvement in the war in Yemen. We have repeatedly expressed 
our concern about his cases at the highest levels and called for his 
release. If confirmed, I will be happy to provide your office updates 
on this and other types of engagement with the Government of Bahrain.
    Imprisonment and detention of individuals on politically motivated 
charges undermines the right of political expression and compromises 
the atmosphere for reconciliation. We have repeatedly voiced concern 
about these issues, both publicly and privately, at the highest levels, 
urged the Government of Bahrain to abide by its international legal 
obligations and to focus on issues such as judicial reform, making the 
political system more inclusive, and rebuilding trust between the 
Government and citizens. These are all issues that, if confirmed, I 
would continue to engage on.

    Question 5. The State Department's 2017 International Religious 
Freedom Report found that the Government of Bahrain continued to 
discriminate systematically against its Shia Muslim population. At the 
release of the report, Secretary of State Tillerson stated, ``The 
[Bahraini] Government continued to detain and arrest Shia clerics, 
community members, and opposition politicians. Members of the Shia 
community there continue to report ongoing discrimination in government 
employment, education, and the justice system. Bahrain must stop 
discrimination against the Shia communities.'' If confirmed, how will 
you persuade the Bahraini Government to respect religious freedom and 
stop the systematic discrimination against its Shia population?

    Answer. We will urge the Government to end discrimination against 
Shia in government employment and education; to pursue reconciliation 
between the Government and Shia communities; and to allow prisoners to 
practice their religions. We will also continue to condemn the unfair 
detention, harassment, and revocation of citizenship of nonviolent Shia 
religious figures and activists. Additionally, we will advocate for the 
Government to pursue political reforms, which would take into 
consideration the needs of all citizens regardless of religious 
affiliation.

    Question 6. Bahrain is on Tier 2 of the Trafficking in Persons 
Report of 2017. What can the U.S. do to help the Government improve its 
efforts to combat and eliminate human trafficking in all its forms?

    Answer. Bahrain has made progress in addressing human trafficking 
within its borders by developing a national referral mechanism, 
promoting a national anti-trafficking strategy, investigating potential 
trafficking cases, and taking steps to amend elements of the 
sponsorship system that increases workers' vulnerability to forced 
labor and debt bondage.
    There is more that can be done, as indicated in the State 
Department's annual Trafficking in Persons Report. If confirmed, I will 
urge the Government to investigate, prosecute, and convict traffickers, 
particularly cases involving forced labor or allegedly complicit 
officials. I will also urge the Government of Bahrain to implement 
procedures to identify trafficking victims among vulnerable groups, 
such as domestic workers and women in prostitution, and make efforts to 
ensure identified trafficking victims are not punished for unlawful 
acts committed as a direct result of being subjected to trafficking, 
such as illegal migration or prostitution.

    Question 7. Bahrain remains geographically strategic to combating 
threats in the Middle East. Do you believe the U.S. 5th Fleet 
Headquarters should remain based in Bahrain? What efforts should be 
made to ensure the long-term viability of the U.S. military presence 
there?

    Answer. Yes, I believe the U.S. Fifth Fleet Headquarters should 
remain based in Bahrain. The operational and logistical support that 
the Kingdom provides our military is essential to the success of our 
campaign against ISIS and enables our Navy to lead a 31-country 
international coalition that counters piracy, drug trafficking, and 
terrorism across 2.5 million square miles of ocean and seas.
    Bahrain faces persistent threats from Iran, including Iran's 
training and supply of lethal aid to individuals and groups targeting 
the Government and security forces of Bahrain. This also represents a 
challenge to the long-term viability of our military presence there. I 
look forward to cooperating closely with colleagues across the 
Departments of State and Defense to continue to support Bahrain's armed 
forces to address these and other shared threats.
    In addition, our counterterrorism and military cooperation with 
Bahrain is paired with a clear understanding that Bahrain's own long-
term stability and security depend on it achieving political 
reconciliation and upholding its commitments to universal human rights. 
If confirmed, I will continue to urge the Government of Bahrain to take 
steps to ensure inclusive elections in 2018 and to advance reform 
efforts for the benefit of Bahrain's long-term security and our mutual 
interests in regional stability.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Justin Siberell by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promotion of democracy and human rights has been an 
important priority for me throughout my 24-year Foreign Service career.
    As a first-tour Political Officer in Panama from 1993-1995 shortly 
after Operation Just Cause, I worked with political party 
representatives, including those linked to the former Noriega 
Government, to engage constructively in the general elections of 1994, 
and served as an accredited elections observer for that same election.
    As Desk Officer for Iran from 1998-2000, I drafted the State 
Department's Human Rights Report chapter on Iran and worked closely 
with opposition and dissident groups to call attention to the Iranian 
regime's systematic repression of political opponents and perceived 
enemies, for instance the Baha'i community.
    As Press Officer at the U.S. Embassy in Amman from 2002-2005, I 
worked with our diplomats, USAID professionals and civil society 
representatives to highlight U.S. efforts to strengthen democratic 
processes in Jordan, even as regional events put significant pressure 
on democratic reforms. I organized a series of training programs for 
Iraqi journalists in Amman on the role of a free press in a democratic 
system, and made use of speaker programs administered by the State 
Department's Bureau of International Information Programs to invite 
prominent U.S. academics and democracy experts to engage local 
audiences.
    As Acting Coordinator for Counterterrorism at the Department of 
State from 2016-2017, I advocated for international approaches to 
countering terrorism within a strong rule of law framework that ensures 
the protection of human rights and civil liberties. Through U.S.-led 
initiatives within the Global Counterterrorism Forum, as an example, we 
achieved the adoption of ``good practice'' documents that have 
influenced governments not to accept a false tradeoff between effective 
counterterrorism practice and protection of such liberties. I ensured 
also that all U.S.-funded counterterrorism programming for which the CT 
Bureau was responsible adhered to requirements under the Leahy Law, and 
promoted international attention upon and justice for the victims of 
terrorist violence, including minority communities.
    If confirmed, I will remain committed to the promotion of human 
rights and democracy in carrying out my responsibilities representing 
the United States in Bahrain.

    Question 2. What are the most pressing human rights concerns in 
Bahrain today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Bahrain? What do 
you hope to accomplish through these actions?

    Answer. The most serious human rights problems in Bahrain include 
restrictions on the existence and operation of political societies, 
restrictions on free expression, assembly, and association; and lack of 
due process in the legal system, including arrests without warrants or 
charges and lengthy pretrial detentions--used especially in cases 
against opposition members and political or human rights activists.
    If confirmed, I will continue the Embassy's discussion with both 
government and opposition actors with the aim of their agreeing on a 
roadmap to an inclusive 2018 parliamentary election.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Bahrain in 
advancing human rights, civil society and democracy in general?

    Answer. These are Bahraini challenges that will require Bahraini 
solutions, but Bahrain's partners can also be supportive of the 
process. I expect the broader regional political context to complicate 
and aggravate Bahrain's efforts to address its human rights challenges.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Bahrain?

    Answer. Yes. If confirmed I am committed to meeting with a broad 
spectrum of stakeholders, including human rights, civil society and 
other non-governmental organizations in the U.S. and in Bahrain.

    Question 5. Will you and your embassy team actively engage with 
Bahrain to address cases of key political prisoners or persons 
otherwise unjustly targeted Bahrain?

    Answer. Yes. If confirmed, the embassy team and I will continue to 
engage with the Bahraini Government to address cases of key detainees 
in Bahrain.

    Question 6. If confirmed as Ambassador, what steps will you take to 
pro-actively support the Leahy Law and similar efforts, and ensure that 
provisions of U.S. security assistance and security cooperation 
activities reinforce human rights?

    Answer. If confirmed, we will continue to thoroughly vet all 
individuals and units nominated to participate in U.S.-funded security 
assistance activities or to receive equipment, in accordance with the 
Leahy law. If we find credible information of a gross violation of 
human rights, we will take the necessary steps in accordance with the 
law and Department policy, including working to ensure the responsible 
parties do not participate in U.S.-funded training.

    Question 7. Will you engage with the people of Bahrain on matters 
of human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes. If confirmed, human rights, civil rights, and 
governance issues will be a consistent and core component of my 
engagement with the people of Bahrain.

    Question 8. What will you do to build people-to-people ties between 
Americans and Bahrainis and to support Bahrain civil society, human 
rights activists, and independent media? What do you need from 
Washington-based U.S. officials on this?

    Answer. If confirmed, I will seek to engage with a broad spectrum 
of Bahraini Government and society and encourage U.S. Government 
visitors to do the same, when appropriate. I encourage Congressional 
delegations to visit Bahrain and to meet with Bahraini groups in 
Washington.
    Hundreds of Bahraini students come to the United States each year 
to attend U.S. colleges and universities, providing Bahrainis with a 
deeper understanding of American society and the American people, and 
more than 2,500 Bahrainis have participated in official cultural and 
academic exchanges over several decades, including the Fulbright 
Program. Many Bahrainis have also benefited from participating in 
International Visitor Leadership Program visits to the U.S. If 
confirmed, I look forward to supporting programs like these.

    Question 9. During my review of the proposed sale of F-16 fighter 
aircraft to Bahrain, I sent a letter to Secretary Tillerson on May 11, 
2017 to raise my concerns regarding Bahraini Government policies. In 
reply, I received two letters. One from Acting Assistant Secretary of 
State for Legislative Affairs Joe McManus on May 24, 2017 and a second 
letter from Deputy Secretary Sullivan on June 29, 2017. Please confirm 
that you have reviewed this correspondence. Can you provide the same 
assurance as Deputy Secretary Sullivan, that you will encourage reform, 
reconciliation, and respect for rights in Bahrain, and that these 
issues will be the center of your diplomatic engagement with the 
Kingdom of Bahrain?

    Answer. I have reviewed the correspondence and affirm my commitment 
to advance the objectives identified therein. If confirmed, I will 
encourage reform, reconciliation, and respect for rights in Bahrain, 
and these issues will be at the center of my engagement with the 
Government and people of Bahrain.

    Question 10. I am concerned by developments since the beginning of 
2017 that indicate backsliding on implementation of recommendations 
from the Bahrain Independent Commission of Inquiry (BICI), and even 
Bahraini Government decisions to reverse previous decisions. For 
example, on April 3 Bahrain's National Assembly and the King approved a 
Constitutional amendment authorizing military courts to try civilians 
in cases of terrorism. This move appears to reverse BICI Recommendation 
1720, which required the Government transfer all military court cases 
from 2011 to civil courts for review. In your assessment, does the 
Bahraini Government remain committed to implementing BICI 
recommendations? What steps will you take as Ambassador to motivate the 
Bahraini Government to commit to the reform program outlined in the 
BICI?

    Answer. We have repeatedly voiced concern about these issues and 
urged the Government of Bahrain, at the highest levels, to reinvigorate 
its reform program, make the political system more inclusive, and 
rebuild trust between the Government and citizens. If confirmed, I will 
continue to urge the Government of Bahrain to take steps to ensure 
inclusive elections in 2018 and to advance reform efforts for the 
benefit of Bahrain's long-term security and our mutual interests in 
regional stability.

    Question 11. How will you work with the Bahraini Government to 
address the gaps that still concern human trafficking?

    Answer. Bahrain has made progress in addressing human trafficking 
within its borders by developing a national referral mechanism, 
promoting a national anti-trafficking strategy, investigating potential 
trafficking cases, and taking steps to amend elements of the 
sponsorship system that increases workers' vulnerability to forced 
labor and debt bondage.
    There is more that can be done, as indicated in the State 
Department's annual Trafficking in Persons Report. If confirmed, I will 
urge the Government to investigate, prosecute, and convict traffickers, 
particularly cases involving forced labor or allegedly complicit 
officials. I will also urge the Government of Bahrain to implement 
procedures to identify trafficking victims among vulnerable groups, 
such as domestic workers and women in prostitution, and make efforts to 
ensure identified trafficking victims are not punished for unlawful 
acts committed as a direct result of being subjected to trafficking, 
such as illegal migration or prostitution.

    Question 12. How do you plan to work with the Department of Labor, 
and non-government organizations, to assess Bahrain's compliance with 
the labor protection provisions of the U.S.-Bahrain Free Trade 
Agreement?

    Answer. If confirmed, I will continue working with the Department 
of Labor and U.S. Trade Representative on engaging the Government of 
Bahrain on its labor commitments under our Free Trade Agreement. I will 
welcome the contributions of civil society throughout this process.

    Question 13. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. My career in the Foreign Service has taught me the value of 
a diverse workforce. If confirmed, I will work to advance equal 
employment opportunity and ensure each member of our workforce, 
regardless of background, has the opportunity to grow professionally 
and pursue positions of leadership in the State Department and 
throughout the U.S. Government.

    Question 14. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that all supervisors take 
mandatory EEO training and strictly adhere to related laws and 
policies. I will emphasize the necessity of transparency, fairness, and 
inclusivity when making hiring decisions, my assessment of my 
subordinates' performance will include evaluation of their commitment 
to diversity, and I will take immediate corrective action if I learn of 
any incident that does not reflect the value the United States and the 
State Department place on diversity and respect for all.

    Question 15. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 16. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 17. Do you or do any members of your immediate family have 
any financial interests in Bahrain?

    Answer. No.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Justin Siberell by Senator Robert Menendez

    Question 1. Over the past year, the Bahraini Government has 
continued and escalated its crackdown on freedom of expression, 
particularly against human rights defenders and peaceful opposition 
leaders. This administration has seemed to indicate that human rights 
will not remain a priority for the United States, in Bahrain in 
particular. Will you actively engage with civil society leaders in 
Bahrain? Will you continue to stress the importance of respecting 
fundamental human rights and democratic values in Bahrain? Will you 
engage with the Bahraini Government about its ban of opposition parties 
and stress the importance of democratic institutions, particularly as 
Bahrain heads into parliamentary elections next year?

    Answer. If confirmed, I will continue the Embassy's engagement with 
government, civil society, and nonviolent opposition actors to 
encourage the promotion and protection of human rights and fundamental 
freedoms, while working specifically towards inclusive 2018 
parliamentary elections. U.S. Government actions in support of these 
aims reflect our strong belief that political reform and promotion of 
human rights protections are in Bahrain's long-term security interest 
and consistent with our mutual interest in regional stability.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Justin Siberell by Senator Cory Booker

    Question 1. Bahrain has been one of our country's closest defense 
partners in the Gulf, home of the Fifth Fleet and thousands of American 
men and women in uniform. Yet Bahrain's response to the uprising in 
2011 and subsequent crackdown has complicated relations between our two 
nations.
    While the country began to make slow progress through 
implementation of the Bahrain Independent Commission of Inquiry, 
according to Amnesty International and others, the progress has 
severely reversed in the last year.
    Amnesty International's recent report documents in horrific detail 
the steps Bahraini authorities have taken to crush any independent 
voices, closing down political parties, jailing well-known human rights 
activists, and backtracking on promised reforms.

   How do you think we should balance our strategic priorities with 
        our commitment to human rights?

    Answer. Enhancing our security cooperation with Bahrain does not 
diminish the consistent emphasis we place on human rights issues. 
Indeed, our counterterrorism and military cooperation with Bahrain is 
paired with a clear understanding that Bahrain's own long-term 
stability and security depend on the country achieving political 
reconciliation and upholding its commitments to universal human rights. 
We continue to be concerned with government actions against nonviolent 
political and human rights actors, and will continue to urge the 
Government of Bahrain to take steps to ensure inclusive elections in 
2018 and to advance reform efforts for the benefit of Bahrain's long-
term security and our mutual interests in regional stability. If 
confirmed, I will work to ensure that we continue to have an open and 
honest dialogue with Bahrain on the full range of issues affecting our 
bilateral relationship, including human rights.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to J. Steven Dowd by Senator Marco Rubio

    Question 1. In 2016, U.S. firms accounted for only .4 percent of 
African Development Bank procurement contracts. Would you commit to 
working with the U.S. business community and the African Development 
Bank to expand opportunities for U.S. firms?

    Answer. Yes. If confirmed, this will be one of my top priorities.

    Question 2. In 2016, the World Bank provided roughly four times as 
much financing in Africa as the African Development Bank. How can the 
African Development Bank differentiate itself from other multilateral 
lenders and donors in Africa?

    Answer. In recent years, the AfDB has developed a strong track 
record in infrastructure and fragile and conflict-affected states. 
Approximately half of the AfDB's financing has been to infrastructure, 
and the Bank has emerged as a leader in its approach to addressing the 
underlying drivers of instability in fragile states (e.g., weak 
governance, food insecurity). Given Africa's infrastructure gap and 
fragility challenges, the AfDB should continue to focus on and enhance 
its work in these areas.

    Question 3. What do you see as the most important challenges facing 
the African Development Bank? On which areas of the Bank's agenda would 
you like to concentrate your efforts during your term?

    Answer. I believe some of the AfDB's most important challenges 
surround President Adesina's ambitious institutional reforms. These 
include his ``High 5'' strategic priorities (energy, agriculture, 
industrialization, regional integration, and quality of life) and his 
significant organizational reforms. Reforms of this scale are difficult 
to execute but have the potential to markedly enhance efficiency and 
impact. If confirmed, my top priorities will include: ensuring 
effective implementation of the AfDB's reform agenda; further enhancing 
the AfDB's efforts to reduce instability and create jobs in fragile and 
conflict-affected states; and increasing opportunities for U.S. 
businesses at the AfDB and in Africa, including by strengthening the 
investment climate in African countries.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to J. Steven Dowd by Senator Benjamin L. Cardin

Human Rights
    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Having worked only in private industry, issues of human 
rights and democracy generally do not arise directly. However, I can 
say that, no matter where or with whom I conducted business, the 
ethical treatment of employees, contractors, and others was always the 
highest priority.

    Question 2. If confirmed, how will you take into account labor 
rights, land rights, and other relevant human rights considerations 
when financing and supporting ADF's development projects?

    Answer. If confirmed, I will also use my position on the Board of 
Executive Directors to try and ensure that all projects meet the AfDB's 
safeguards policies, which address labor rights, land rights, and other 
considerations. I will also work closely with the Treasury Department 
to follow all relevant legislative mandates.
Diversity

    Question 3. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups?

    Answer. If confirmed, I will promote, mentor and support my staff 
who come from diverse backgrounds and underrepresented groups, 
consistent with fair management practices and relevant AfDB policies.

    Question 4. What steps will you take to ensure each of the 
supervisors at the ADF are fostering an environment that is diverse and 
inclusive?

    Answer. If confirmed, I will use my oversight role on the AfDB's 
Board of Executive Directors to try and ensure that AfDB management 
fosters an environment that is diverse and inclusive. I will also 
advocate for these issues to be considered, as appropriate, in the 
development and review of policies in the AfDB's human resources 
committee. The United States will sit on this committee in the coming 
year.
Conflicts of Interest

    Question 5. Do you commit to bring to the committee's attention 
(and the Inspector General) any change in policy or U.S. actions that 
you suspect may be influenced by any of the President's business or 
financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. If confirmed, I commit to carrying out my duties consistent 
with applicable conflict of interest laws and policies, and to 
reporting any potential misconduct of which I become aware to the 
appropriate authorities.

    Question 6. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to carrying out my duties consistent 
with applicable conflict of interest laws and policies, and to 
reporting any potential misconduct of which I become aware to the 
appropriate authorities.

    Question 7. Do you or do any members of your immediate family have 
any financial interests in Africa?

    Answer. Neither I nor any member of my family has any financial 
interests in Africa.
Growing New Markets
    Question 8. What is your evaluation of the capital needs of the 
region?

    Answer. Africa indeed faces significant capital needs. According to 
a recent World Bank report, the region's annual infrastructure needs 
are around $90 billion, of which only half is currently being met. 
African businesses also need capital if they are to serve as engines of 
growth and job creation for the continent. Foreign investment and donor 
resources are an important source of capital, but Africans are also 
working to mobilize domestic resources more effectively. Improved 
domestic resource mobilization by governments and deeper, stronger 
capital markets will be important to address the continent's investment 
gaps.

    Question 9. When we look at these rapidly growing economies, what 
role do you see for U.S. foreign assistance in opening new markets for 
American businesses?

    Answer. I believe that U.S. foreign assistance can play a critical 
role in opening markets for American businesses. The AfDB can increase 
opportunities for American businesses in Africa in a number of ways, 
including by: strengthening government transparency and procurement 
procedures, pro-business policies, and rule of law; helping develop 
critical infrastructure; and supporting the development of a robust 
African private sector, thereby boosting potential demand for U.S. 
goods and services.

    Question 10. Please evaluate the differences in the AfDB's 
approaches in North Africa and Sub-Saharan Africa, and in oil-exporting 
and oil-importing countries.

    Answer. In the last few years, the AfDB's approach in North Africa 
has focused on strengthening governance, developing infrastructure, and 
supporting private sector growth. The AfDB has taken a broader approach 
in Sub-Saharan Africa, supporting various types of projects across the 
AfDB's ``High 5'' strategic priority areas (energy, agriculture, 
industrialization, regional integration, and quality of life), and 
placing a particular emphasis on addressing the underlying drivers of 
fragility.
    Recent economic developments since the downturn in commodity 
prices, including oil, have shown that more diversified African 
economies have withstood these shocks better and seen stronger, 
sustained growth. The AfDB's approach in oil-exporting and oil-
importing countries in Sub-Saharan African differs mostly in the 
starting point of each country. The AfDB is working to support private 
sector growth and diversification in all its countries of operation. In 
countries that have relied solely on oil exports to generate growth and 
government revenue, this may require the AfDB to support more 
fundamental reforms to the general business climate and other policies.

    Question 11. What is your evaluation of China's development finance 
efforts in Africa and increased engagement in the AfDB? Should this be 
a source of concern to U.S. policymakers?

    Answer. While China has ramped up its investment in Africa, this 
has not been matched by a significant increase in its contribution to 
the AfDB. China will provide less than three percent of donor 
contributions to the fourteenth replenishment of the African 
Development Fund. This should be a source of concern. AfDB financing 
meets high standards in areas such as environmental and social 
safeguards and procurement, while Chinese financing through other means 
may not achieve these standards.
    I am also concerned that Chinese financing may contribute to or 
exacerbate debt sustainability issues in certain African countries. The 
AfDB has a number of mechanisms to ensure its projects do not 
contribute to debt distress--most notably, countries that are at high-
risk of debt distress are only eligible to receive grants, while 
countries at moderate risk are only eligible for a mix of grants and 
zero-interest loans. Chinese financing may not take these risks into 
account.

    Question 12. What is your assessment of President Adesina's ``high 
5'' agenda and his presidency to date?

    Answer. I believe that President Adesina has an ambitious vision 
for the AfDB that has significant potential. His ``High 5'' priorities 
help narrow the AfDB's strategic focus, and his ongoing institutional 
reforms are designed to improve its efficiency and effectiveness. The 
key is effective implementation of this agenda. Among other things, 
this requires focusing on the AfDB's comparative advantages in areas 
such as infrastructure and fragile states, as well as the achievement 
of development results.

    Question 13. How do you see the division of labor between the World 
Bank and the African Development Bank? What further measures, if any, 
could be undertaken to increase coordination and reduce redundancies?

    Answer. While the World Bank has expertise across a broad range of 
areas, the AfDB is smaller, with specific areas of expertise and 
comparative advantage. The AfDB should narrowly focus on its High 5 
strategic priorities (energy, agriculture, industrialization, regional 
integration, and quality of life). It should place particular emphasis 
on infrastructure and fragile and conflict-affected states, two areas 
where it has a strong track record. I understand that the World Bank 
and AfDB coordinate closely on their engagement in many African 
countries, though the exact level of coordination varies by country. If 
confirmed, I will seek to further enhance and systematize this 
coordination.
Post Conflict Role of the African Development Bank
    Question 14. What role do you see for the African Development Back 
to play in post conflict reconstruction and peace building?

    Answer. I see the AfDB playing a significant role. Twenty of the 
AfDB's client countries are fragile and conflict-affected states, and 
the AfDB has been a leader in addressing the underlying drivers of 
instability in these countries (e.g., weak governance, food 
insecurity). I believe that the AfDB should continue its efforts to 
strengthen the public and private sectors in fragile and conflict-
affected states.
Corruption
    Question 15. What will you do to continue the progress towards 
combatting corruption both within the Bank and in member countries?

    Answer. If confirmed, I will use my oversight role on the AfDB's 
Board of Executive Directors to ensure that AfDB projects meet high 
procurement and anti-corruption standards. I will also seek to further 
strengthen the AfDB's anti-corruption investigation unit and 
independent accountability mechanism, so that any potential misuse of 
AfDB funding is promptly investigated. The AfDB has a number of 
programs to strengthen governance and reduce corruption in its member 
countries, and I will be a strong supporter of these efforts.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to J. Steven Dowd bySenator John Barrasso

    Question 1. When reviewing projects at the African Development 
Bank, what criterion will you use in determining whether the United 
States will support energy development projects?

    Answer. If confirmed, I will work closely with the Treasury 
Department to review energy projects against the new, broader, 
objectives recently set forth by Treasury. This includes supporting 
energy projects that go to the core of supporting a country's 
development. This can and should include helping countries access and 
use fossil fuels more cleanly and efficiently. By pursuing projects 
that employ a mix of energy sources, the AfDB can support the 
development of robust, efficient, competitive, and integrated global 
markets for energy.
    Support for a project will also depend on its consistency with 
legislative mandates and administration policies.

    Question 2. Do you believe the African Development Bank should 
support all types of energy resources in order to provide Sub-Saharan 
Africa with the electricity it needs to grow their way out of poverty?

    Answer. If confirmed, I will consider a broad range of power 
projects that help African countries have a diversified mix of energy 
sources. I believe that Treasury's new energy guidance provides the 
flexibility to approve projects designed to meet developing economies' 
energy needs, ensure energy security, and promote economic growth.


    Question 3. Will you vote in support of energy development projects 
that include oil, coal and natural gas at the African Development Bank?

    Answer. My understanding is that Treasury's newly revised energy 
guidance provides U.S. Executive Directors with the flexibility to 
approve a broad range of power projects, including those that support 
countries to use fossil fuels. If confirmed, I will consider a broad 
range of power projects to promote access to affordable and reliable 
energy that will contribute to raising living standards across Africa.

    Question 4. Coal provides an affordable and reliable energy source 
which is important to countries looking for assistance in poverty 
alleviation and economic development. Do you agree with this statement? 
If not, why not?

    Answer. I believe that it is important for countries to have 
affordable and reliable access to energy. If confirmed, I will evaluate 
each AfDB energy project on an individual basis, weighing various 
factors including the project's potential poverty alleviation and 
economic development benefits. Helping countries access and use fossil 
fuels more cleanly and efficiently is a key objective of Treasury's 
revised energy guidance. It is my expectation that this includes 
support for coal-fired power projects.

    Question 5. Do you believe economic feasibility and the potential 
to provide maximum access to energy with maximum efficiency must be the 
biggest factors when evaluating projects?

    Answer. If confirmed, I'm committed to using the U.S. voice and 
vote at AfDB to grow economies on the African continent, which 
ultimately will reduce poverty and raise living standards. A key 
consideration for each project should be the economic and development 
impact likely to be realized, including for energy projects. Treasury's 
revised energy guidance allows the U.S. additional flexibility in 
pursuing those projects at the AfDB that make the most sense for the 
country of operation.

    Question 6. What proportion of procurement contracts at the African 
Development Bank and the African Development Fund is awarded to U.S. 
businesses? What proportion of these contracts is awarded to Chinese 
businesses? What specific steps would you advocate for at the African 
Development Bank and the African Development Fund to increase the 
percentage of contracts awarded to U.S. companies?

    Answer. The AfDB estimates that in 2016, 0.4 percent of AfDB and 
AfDF contracts were awarded to U.S. firms, and 22.1 percent were 
awarded to Chinese firms. It is my understanding that there are serious 
difficulties in tracking procurement awards by country of origin, 
including accounting for intermediate jurisdictions or contracts that 
are implemented through sub-contractors, so the data may underreport 
U.S. procurement. In 2016, with strong U.S. support, the AfDB 
introduced a revised procurement policy that better takes into account 
the principles of ``value-for-money'' and ``fit-for-purpose.'' This 
policy should increase opportunities for U.S. firms, which have a 
competitive advantage in higher-value, long-term procurement contracts, 
as opposed to those that focus on the lowest cost. If confirmed, one of 
my top priorities will be ensuring this revised policy is effectively 
implemented.

    Question 7. What do you believe is an appropriate role for China to 
play at the African Development Bank and African Development Fund?

    Answer. I believe it is appropriate for China to co-finance AfDB 
projects and increase its contribution to the AfDF to a level that is 
more consistent with its economic status. China will provide less than 
three percent of donor contributions to the fourteenth replenishment of 
the African Development Fund. Chinese financing that occurs through the 
AfDB or in the form of co-financing is held to high standards in areas 
such as environmental and social safeguards and procurement, and takes 
into account the recipient country's risk of debt distress. Chinese 
financing through other means may not achieve these standards.

    Question 8. What is your view of China's Asian Infrastructure 
Investment Bank and the Chinese investment efforts in Africa? How do 
these efforts compliment or duplicate efforts at the African 
Development Bank?

    Answer. Africa has a significant infrastructure gap, and the AIIB 
and Chinese investment in Africa can play an important role in 
infrastructure finance. It is important, however, that this finance 
meets high standards in areas such as environmental and social 
safeguards and procurement, and takes into account the recipient 
country's risk of debt distress. Given Africa's infrastructure needs I 
believe Chinese investment can certainly complement the AfDB's efforts, 
especially if done through co-financing and close partnership with the 
AfDB on individual projects.



                               __________


           Responses to Additional Questions for the Record 
           Submitted to J. Steven Dowd by Senator Cory Booker

    Question 1. One of the Obama administration's main initiatives on 
the continent was Power Africa, an effort led by USAID to help 
significantly increase power generation across Africa. I would point 
out that this initiative has not only helped to bring thousands of 
megawatts of electricity online in countries across Africa but has also 
led to hundreds of millions of dollars in U.S. exports.
    In a speech last year, the AfDB's Senior Vice-President stated that 
Africa's most important challenge was the lack of electricity, with 
some 645 million people without access. As a result, the AfDB is 
investing $12 billion in the energy sector over the next five years and 
hopes to leverage tens of billions more.

   Can you speak about where you think the lack of electricity ranks 
        among the continent's biggest development challenges and how 
        you think the AfDB and Power Africa can collaborate to address 
        this critical problem?

    Answer. I believe that electricity is one of the continent's 
largest development challenges and offers significant opportunities for 
U.S. businesses. Lack of electricity is cited frequently as a top 
constraint for businesses in Africa, and Congress emphasized the 
importance of this issue in the bipartisan Electrify Africa Act of 
2015. It is appropriate for energy to be one of the AfDB's ``High 5'' 
strategic priorities. I understand that the AfDB is a Power Africa 
partner, and the two parties are collaborating closely on specific 
investments and policy reforms. If confirmed, I will work to support 
this joint effort to address one of the continent's greatest needs in 
ways that leverage the expertise and financing of U.S. businesses.

    Question 2. Africa today contains 7 out of 13 of the world's 
fastest growing economies including the Ivory Coast, Tanzania, Senegal, 
Rwanda, and Kenya, which are all growing at or above 6 percent of their 
GDP. As you no doubt know well, China has been increasing its 
investments and diplomatic engagement across Africa at a ferocious 
speed. While it is a member and has a smaller share than us in the 
African Development Bank, its own financing mechanisms and initiatives 
have made it a top partner of many governments on the continent and 
recently the continent's largest trading partner. I am concerned that 
we are unwittingly ceding strategic partnerships and opportunities in 
Africa to China.

   How do you view the United States' engagement through the AfDB as 
        part of our economic statecraft with Africa and how do you plan 
        to work with colleagues at OPIC, the Millennium Challenge 
        Corporation, the World Bank, and elsewhere in pursuit of a 
        coordinated U.S. strategy?

    Answer. I believe U.S. engagement at the AfDB plays an important 
role in our economic approach to Africa. Working through the AfDB, we 
create opportunities for U.S. businesses by strengthening the 
investment climate in African countries. We also ensure that projects 
meet international best practices in areas such as environmental and 
social safeguards and procurement, and take into account the recipient 
country's risk of debt distress. If confirmed, I will work closely with 
my interagency colleagues to coordinate closely, with each party, as 
appropriate, focusing on its areas of comparative advantage. This will 
allow us to maximize our effectiveness.

    Question 3. Africa's youth population has been increasing faster 
than in any other part of the world. A young population can be a 
resource that leads to innovation and supports governance and political 
reforms. However, a large youth population that is not gainfully 
employed can also be a liability, further undermining growth prospects. 
Africa's youth present a formidable challenge that requires careful 
interventions.

   How do you think that the African Development Bank can contribute 
        to stability and economic growth by tapping into the youth 
        bulge in Africa?

    Answer. I agree that Africa's youth bulge represents both a 
significant opportunity and potential risk, and I believe the AfDB can 
play a key role in ensuring it has a positive impact. By strengthening 
the investment climate in African countries and supporting private 
sector growth, the AfDB can help to ensure there are job opportunities. 
At the same time, it can help provide the youth with the skills to 
match these opportunities through its education and training programs. 
I note that creating jobs for youth is a core focus of one of the 
AfDB's ``High 5'' strategic priority areas.



                               __________


  Letter to President Donald J. Trump from the Wyoming Congressional 
    Delegation Opposing the Return of the Bells of Balangiga to the 
                              Philippines

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                                  <all>



                              NOMINATIONS

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Johnson, Flake, Gardner, Young, Barrasso, Isakson, Cardin, 
Shaheen, Coons, Udall, Murphy, Kaine, Markey, Merkley, and 
Booker.
    Also Present: Senators Cornyn, Manchin, and Lee.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We have an unusual procedure today. As usual, we will defer 
to the outstanding Senators who are here to introduce others. 
And we thank them for being here. It is an honor to have you 
here in our committee. But we will let them go first, so that 
they can go on to their other business.
    We will then adjourn and convene the business meeting for 
just a moment, and hopefully pass some nominees out and pass 
some bills out. Then we will resume with the great testimony 
that we know we will hear from our nominees.
    So with that, again, we welcome you. If I remember the 
seniority order, I know that Senator Cornyn is first in 
seniority. We thank you for being back here again with another 
great Texan. I do not know whether it is Senator Lee or Senator 
Manchin who came next. I think I will let you guys arm wrestle 
over that while Senator Cornyn gives his comments.
    But, again, thank you so much for being willing to come and 
make good comments about outstanding nominees. We thank you.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Chairman Corker and Ranking 
Member Cardin. Thanks for holding this hearing.
    I am here primarily to introduce Wess Mitchell, but I have 
to comment on the great willingness of Jon Huntsman to serve 
his country once again, this time in another peaceful, placid 
sort of setting, in Moscow this time. [Laughter.]
    Senator Cornyn. But Wess Mitchell has been nominated to 
serve as Assistant Secretary of State for European and Eurasian 
Affairs, and it is an honor to introduce him. He was born in 
Lubbock, Texas. He is a sixth generation Texan, and I am 
confident that he will bring his Texas can-do attitude to the 
State Department.
    He is joined here today by his wife, Elizabeth, and their 
two children, Wesley and Charlotte, as well as other relatives.
    Outside from being a Texan, Wess has made a name for 
himself as the cofounder of the Center for European Policy 
Analysis, or CEPA, which he created with Larry Hirsch for the 
purpose of strengthening the economic and military ties between 
the United States and Europe.
    His nomination cannot come at a more critical time. Russia, 
as we know, is using both military and cyber capabilities to 
intimidate and pressure Western nations while terrorist groups 
infiltrate their people. As we sit here today, Russia, of 
course, is conducting its largest military exercise in the 
years in the Baltics.
    Also troubling is the news that Russia sold sophisticated 
antiaircraft weaponry to Turkey in a clear attempt to try to 
drive a wedge in our NATO alliance.
    Through his work at CEPA, Wess has advocated a strong U.S. 
position in Europe to include U.S. leadership and participation 
in NATO. Along with Ambassador Nikki Haley, Wess will bring 
deep institutional background and leadership to a region 
threatened by both conventional and nonconventional forces.
    I recently had the chance to travel with some of our 
colleagues to the Balkans and met with their leaders who 
unanimously expressed their growing concern over Russian 
influence and the destabilizing effect of the refugee crisis in 
Europe. As recent additions to the NATO family, these countries 
look to the West for leadership, security, and trade. And I 
cannot think of a better place for them to look, rather than to 
fall into the tender mercies of Vladimir Putin and the Russian 
Federation.
    Wess has created one of the largest NATO brain trusts in 
the United States and I think is just the kind of person we 
need to send to Europe to reassert U.S. leadership following 
years of neglect.
    That is why I wholeheartedly support his nomination and 
encourage the committee to do the same. I look forward to 
working with him, Secretary Tillerson, and the rest of the 
administration as we work to reestablish U.S. global leadership 
in the promotion of the democratic values in the region.
    So thank you, Chairman Corker and Ranking Member Cardin, 
for having me here today, and to the entire committee. And I 
commend this nominee for your support.
    Thank you.
    The Chairman. Thank you very much.
    It is going to be Senator Manchin, it looks like. Go ahead.

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. I have 1-month seniority on Senator Lee. 
[Laughter.]
    Senator Manchin. Let me just say what a pleasure it is to 
be here before you, Mr. Chairman, allowing me to come and truly 
in a bipartisan way, because the person that we are here to 
speak on behalf of is truly a bipartisan person wanting to get 
things done. So I want to thank Senator Lee for being here 
also, because I know they have been great friends. But Governor 
Huntsman is a dear friend of mine, a personal friend of mine.
    And Governors have a bond unlike most other bonds in 
political life. We all have the same problems. We have the same 
concerns for our constituents. And we try to share our 
successes that we have, and help each other not to repeat the 
same mistakes that we have made. So it is a really unusual 
bond.
    But Mary Kaye, his wife, and Gayle and I and Jon have done 
things together, and we have enjoyed being with each other and 
have become fast friends.
    They have six of their seven children here with them today. 
They have two grandchildren and many more on the way, I am 
sure, as we talk.
    But with that being said, Jon has a resume that is 
unbelievable. And when you think about what Jon has done in the 
past--Ambassador to both China and Singapore, Deputy United 
States Trade Representative, Deputy Assistant Secretary of 
Commerce for East Asia and Pacific Affairs, and Deputy 
Assistant Secretary of Commerce for trade development. But Jon 
is known most for his two terms as Governor for Utah. And the 
people overwhelmingly have supported Jon and voted for him.
    But Jon left the State in such great shape financially. And 
we had a lot in common during the difficult times when the 
crash happened in 2007-2008.
    What I know about Jon Huntsman is this, the compassion he 
has. And I have said this before. We have both gone through 
mining tragedies. The mining tragedies we had in our States 
were devastating to not just the families involved but to all 
of us. And I watched Jon rise up. And the compassion he had for 
each and every one of them, making sure it never repeated 
itself again, I have seen that.
    I have worked with Jon in a group called No Labels. He and 
I were the first cochairs of No Labels, trying to bring people 
together in a bipartisan way, looking for a solution, not 
trying to exacerbate the problems and identify the weaknesses 
of both sides. I have watched Jon.
    We have a troubled world that we live in. And at this time, 
we are the greatest superpower, the only superpower in the 
world. But superpower means more than having super-military 
might. It means having super-diplomatic might also. That is 
going to take a person with skills unlike anything we have ever 
seen before.
    Russia is a challenge to us, but it is one that we have to 
face and we have to work with and try to find a pathway 
forward. There is only one person that I know of, and truly I 
mean this from the bottom of my heart, that I believe can go to 
Russia, try to find a pathway, open up a dialogue, find a 
pathway forward, and find agreements that we may have, 
disagreements where we respect each other and move forward in a 
troubled world, trying to keep it less violent.
    I come here with great pleasure for the opportunity to say 
to my friend thank you for wanting to step up and serve again. 
Jon is a tremendous patriot and a tremendous American, but he 
is also a great friend, and I appreciate him very much.
    So I would encourage all of my colleagues on both sides of 
the aisle to vote unanimously for this outstanding nominee that 
we have before us.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much for being here. We 
appreciate the comments.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you very much, Mr. Chairman.
    I am not going to repeat all of the resume items mentioned 
by Senator Manchin, but I am definitely going to echo Senator 
Manchin's conclusion: I cannot imagine anyone as well-qualified 
to take this post as U.S. Ambassador to Russia as my friend and 
former boss, Governor Jon Huntsman. [Laughter.]
    Senator Lee. I served as his general counsel while he was 
Governor of the State of Utah. So needless to say, I saw him in 
every imaginable circumstance as he worked through decisions. 
[Laughter.]
    Senator Lee. Not every imaginable circumstance. That one 
could plausibly deal with as Governor.
    And in every circumstance, he had one objective, which was 
to serve the people, to find the right outcome, and to make 
sure that families throughout Utah, particularly the poor and 
middle class, were left in a better position than he found 
them. And he succeeded.
    It is no coincidence that this man to my right became the 
most popular Governor in America at the time. His approval 
ratings soared to a record 90 percent. Now I never met a member 
of that 10 percent group that apparently did not approve of 
him. I am not sure they exist.
    But the fact that he was able to do all that he did as a 
policy reformer, as a change agent for government in Utah, 
while still remaining as the most popular Governor in America, 
is itself remarkable.
    Also, what is remarkable is the fact that this is someone 
who has served in every Republican administration since the 
Reagan administration. In addition to that, he was tapped, of 
course, by President Obama to serve as the Ambassador to China. 
One interesting side note here is the fact that I think it is 
worth mentioning separately that he will have served as the 
U.S. Ambassador both for the world's most populous Nation, 
China, and, if confirmed to this position, the Nation bearing 
the world's largest footprint. I think that is significant.
    In addition to this, he has served in a variety of 
capacities in corporate America as an executive in the Huntsman 
Corporation. He serves on the board of Ford Motor Corporation.
    Then there is, of course, his most cherished and important 
position, that of being chairman of the board, I believe it is, 
or perhaps chief operating officer, with Mary Kaye serving as 
the chief executive officer, of the Huntsman family. Jon and 
his lovely wife Mary Kaye have seven amazing children. That is 
no exaggeration here. I would encourage each of you to get to 
know them.
    In short, this is someone who will represent the interests 
of the United States in every moment and in every circumstance. 
Regardless of where you fall on the ideological spectrum, you 
will be pleased with the service this man will perform, if he 
is confirmed as U.S. Ambassador to Russia.
    Thank you.
    The Chairman. Thank you, Senator Lee.
    Thank you all for your comments and for taking the time to 
be here. We appreciate that very much.
    You all are welcome to leave. We are going to move into a 
very boring business meeting. It would indicate that you do not 
have anything else to do, if you stayed. [Laughter.]
    The Chairman. So the committee hearing is adjourned 
briefly, and we will move to the business meeting. [Recess.]
    The Chairman. We will reconvene our hearing.
    I want to thank everybody for their cooperation in moving 
through that. It is very much appreciated.
    I will give a very brief opening statement. I am sure 
Senator Cardin will do the same.
    Europe and Eurasia are home to some of the closest 
partners, and also some of our greatest challenges. Formed in 
1949 to defend the free people of the West from Soviet threat, 
NATO remains vital to the security of Europe and the United 
States. The European Union is also a critical partner in trade, 
politics, and global humanitarian efforts. Additionally, the 
United States' oldest and best allies, France and the United 
Kingdom, are European countries.
    We look to the Bureau of European and Eurasian Affairs to 
manage these relationships as the United States reasserts 
itself all the world stage. Yet Russia's bad acts complicate 
much of the good that the United States tries to do.
    The Russian Federation possesses not only the second most 
powerful military in the world but also a seat on the United 
Nations Security Council, where its veto protects war 
criminals, such as Bashar Assad.
    In the last several years, Russia has twice invaded 
Ukraine, where it continues to illegally occupy Crimea and 
aggravate the war in Donbass.
    Vladimir Putin entered the Syrian war on the side of the 
regime and has repeatedly used chemical weapons on civilians. 
Last year, Russian efforts to influence the 2016 U.S. election 
fundamentally damaged our bilateral relationship.
    If that were not enough, Russia is in violation of the 
Intermediate-Range Nuclear Forces Treaty. It is in violation 
and it is failing to meet its obligations under the Treaty on 
Open Skies.
    On the other hand, we have many issues of common interest, 
and figuring out a way to move between these issues 
successfully is going to be a great challenge for our next 
Ambassador.
    Today's nominees will need to perform some of the most 
important diplomatic work that our country could require to 
preserve our interests throughout Europe and guard against 
further Russian aggression. We thank them for their willingness 
to serve, and welcome them to the committee today.
    Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Let me welcome both of our witnesses. It 
really is a pleasure to have the two nominees before us.
    I cannot think of two more important positions that this 
committee will consider than the two positions that we are 
considering today. They are that consequential.
    I had a chance to meet with both of our nominees, and I 
found the discussions to be extremely helpful and very 
encouraging as to the amount of agreement, as to the importance 
of the assignment and the manner in which our nominees will 
carry out that responsibility, if confirmed.
    Governor Huntsman, it is a pleasure to have you back. You 
just cannot seem to avoid the desire to serve the community. 
And we thank you for that. You are entitled to a little time 
off, but you seem not to want a lot of time off from public 
service.
    But we thank you for your willingness. I particularly want 
to thank your family, because this is a family commitment.
    It will be interesting, your observations as to whether 
Russia was more challenging or less challenging than China. I 
mean, you really have taken on some of the most difficult 
challenges in our country.
    You started with Singapore. You put Utah in there 
someplace, and then decided to go on. So we thank you for that.
    As the chairman pointed out, Russia is really a challenged 
relationship that we have. They attacked us and our democracy 
in 2016. They invaded Ukraine, and they still illegally occupy 
Crimea. They are supporting the Assad regime in Syria.
    So that is why Congress passed the sanctions act against 
Russia, to make it clear that that type of behavior will not go 
unchallenged. We will look forward to you in implementing that 
legislation.
    Our goal is to change Russia's behavior, particularly as it 
reflects U.S. interests. It is not to have a chummy 
relationship with Russia without a change in behavior. Yes, we 
always want to have constructive relationships with all 
countries. But for us to have that bond, we need to have a 
country that respects our independence and respects universal 
values. Today, Russia has done neither.
    I hope that for Russians fighting for freedom in their 
country, that Spaso House will continue to be welcomed for 
civil society, which has been the tradition of the U.S. 
representation and mission. I appreciate your commitment to 
continue that tradition, and I hope there will be regular 
dialogues sponsored by the United States on human rights.
    Boris Nemtsov, the slain opposition leader, called the 
Magnitsky Act the most pro-Russian legislation ever enacted. So 
we will be looking to you to help us implement that pro-Russian 
people legislation known as the Magnitsky Act.
    So we look forward to a good discussion today. Again, we 
thank you for your willingness to serve.
    To Mr. Mitchell, thank you for your willingness to serve.
    I also acknowledge your family. It is a family sacrifice.
    I cannot think of a more important region of the world. The 
transatlantic partnership is critically important to the United 
States and our security. And the defense of our democratic 
values are stronger when we are United with Europe.
    We saw that with Iran. When the sanctions were applied with 
Europe's support, we were able to get Iran's attention. Before 
that, we really were not able to do that.
    The same thing is going to be true with Russia. We had been 
any unity with Europe on Russia. We now believe we have to take 
it to the next plateau. Your responsibility will be to meet 
with our European partners to maintain that unity.
    We need to build resiliency in our democratic institutions 
across Europe. Russia's aggression is not, obviously, aimed 
just at the United States. Its principal targets are in Europe. 
We welcome working with our European partners to strengthen 
that resiliency and to work with regional organizations, such 
as the OSCE. Another hat I wear is the ranking Democrat on the 
OSCE Helsinki Commission.
    There are many challenges. In addition to Russia, you have 
Brexit. You have Turkey and how we are dealing with Turkey. You 
have the migration issues. You have unity against ISIL. You 
have concerns of erosion in the democratic process of some of 
our European countries that are members of EU and NATO.
    So you have a full plate, and we look forward to that 
discussion. And we thank you for your willingness to be here 
and to take on this responsibility.
    The Chairman. Governor, we thank you so much for being 
here. I want to join in with Senator Cardin in thanking you for 
many years of service, both in your State but on behalf of us 
here in our country, but in China and in other places also.
    I had a great meeting with you yesterday and strongly 
support your nomination. I am glad that your family is willing 
to do this. We had some conversations about your wonderful 
spouse and why she would do this. Maybe you will speak to that 
in a moment.
    But we do hope you will introduce them. We thank you for 
bringing them with you. We know that it is a partnership.
    We are anxious to hear your testimony. If you could 
summarize in about 5 minutes any other materials that you want 
to enter into the record, we are glad to do so. But again, 
thank you for your distinguished past service, and thank you 
for your willingness to serve our country in this way.
    With that, if you would begin, we would appreciate it.

    STATEMENT OF HON. JON M. HUNTSMAN, JR., OF UTAH, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
       STATES OF AMERICA TO THE RUSSIAN FEDERATION STATE

    Governor Huntsman. Thank you, Chairman Corker.
    Ranking Member Cardin, thank you for your comments as well, 
for your kind and encouraging words about our return to public 
service, and also fitting in my time as Governor of the great 
State of Utah.
    In reflecting on those years, I have to say that I never 
once invaded one of my surrounding States. [Laughter.]
    Governor Huntsman. Came very close in the case of Nevada 
from time to time, but all was well.
    And I want to thank all members of this committee. It is 
truly an honor to appear before you today as President Trump's 
nominee to be the United States Ambassador to the Russian 
Federation.
    I want to thank the President for his confidence in me and 
for this opportunity, with your approval, to represent the 
American people during what is, we all know, a critical period 
in U.S.-Russian relations.
    Additionally, I want to express my gratitude to Secretary 
of State Rex Tillerson for his support as well.
    Most important to all of this are the people who are 
sitting behind me.
    Senator Corker, thank you for pointing that out.
    A wonderful family, and I want to start by thanking my 
wife, Mary Kaye, without whom, we would not be here today, and 
all our children. Six of seven are here: Daughter Mary Anne, 
who is here with husband Evan Morgan; daughter Abby, who is 
here with Jeff Livingston. I never called them deadbeat sons-
in-law, mind you. They are all the best in the world.
    Our daughter Liddy, who is here with Eduardo Hernandez.
    Our son John, otherwise known as Lieutenant J.G. Huntsman 
at Whidbey Island Naval Air Station, who is part of VAQ-129, a 
Growler pilot in the Growler squadron, is here with lovely wife 
Morgan.
    Our son Will, who is also a naval officer in the EOD 
training pipeline, is not with us, unfortunately. The training, 
apparently, is so strict he could not get a few hours off. So 
we will have to consult with the Armed Services Committee on 
that one next time.
    And our daughters Gracie, who has served the last couple 
months as my foreign policy adviser, and daughter Asha, is here 
as well.
    Their love and support has absolutely sustained me through 
many phases of my life and the different hats that I have had 
the pleasure of wearing, both in the public and the private 
sectors. Obviously, we could not undertake this new challenge, 
with your support, without the complete endorsement of our 
family.
    I have had the privilege of serving as Ambassador three 
times, including to China and to Singapore. I am fully 
cognizant of the profound responsibilities a Chief of Mission 
must assume.
    During my previous service, including as Governor of the 
great State of Utah, and in the private sector, I have always 
prided myself on leading dynamic teams and achieving important 
goals by bringing individuals together from different 
backgrounds and different points of view.
    If confirmed, I look forward to working with colleagues 
from the State Department and all other U.S. Government 
agencies to advance the interests of the American people.
    While I am confident that my previous experiences does 
prepare me for this sensitive diplomatic mission, I am under no 
illusion that serving as the U.S. Ambassador to the Russian 
Federation will be easy or simple.
    Our relationship with Russia is among the most 
consequential and complex foreign policy challenges we face. As 
a nuclear superpower, a permanent member of the U.N. Security 
Council, we have no choice but to deal with Russia on a range 
of issues touching on global stability and security.
    Yet we also need to recognize that today, contrary to 
Helsinki Final Act principles and international law, Russia 
continues to threaten stability in Europe, including by 
violating the sovereignty and territorial integrity of its 
neighbors. Russia also restricts the human rights of its own 
people.
    There is no question--underline ``no question''--that the 
Russian Government interfered in the U.S. election last year, 
and Moscow continues to meddle in the democratic processes of 
our friends and allies.
    Finally, Russia is disregarding its arms-control 
obligations and commitments. As we work to balance these 
multiple challenges, I appreciate the leadership and insight 
that this committee has demonstrated on Russia. And, if 
confirmed, I welcome the opportunity to collaborate with all of 
you in the months and years ahead.
    In short, if confirmed, I will focus on four primary 
approaches.
    First, I will engage Russian Government officials, from the 
highest tiers to the local level, to advance American 
interests. Key among our goals are defeating ISIS, countering 
terrorism, upholding arms control and non-proliferation 
obligations and commitments, finding a political solution to 
the conflict in Syria, and resolving the crisis in Ukraine in a 
way that respects Ukraine's sovereignty and restores its 
territorial integrity.
    I will also not hesitate to remind Government officials 
that they are accountable for their actions. Exhibit A is the 
fact that interference in the U.S. election has led directly to 
the current low level of trust in the relationship.
    The views of Congress were heard loud and clear on this 
point with the near-unanimous passage, as Senator Cardin 
mentioned, of the Countering America's Adversaries Through 
Sanctions Act.
    Second, I will work to protect the interests of the 
American people, to include U.S. business, scholars, tourists, 
and other American visitors who spend time in Russia and engage 
its good citizens. I believe people-to-people exchanges and 
private interactions are an important way to show that our 
disagreements are with the Government of Russia, not with its 
people.
    Third, I will seek out Russian people from across all walks 
of life to share perspectives, to relay American values, and to 
deepen my long-held appreciation for Russia's rich and 
fascinating history and culture. As I have done in previous 
assignments, I look forward to meeting with civil society 
leaders, including those in the religious and human rights 
communities.
    While the Russian Government has sought to limit U.S. 
public diplomacy, our diplomatic mission in Russia continues to 
engage ordinary Russians and thought leaders, and maintains a 
diverse outreach program. I plan to take part in that effort, 
as I strongly believe cultural understanding is enriched by an 
open and respectful exchange of ideas and thoughts. I look 
forward to meeting as many Russian citizens as possible during 
my travels throughout the great country.
    Fourth, but certainly not last in importance, I will work 
to ensure the safety and security of my team, America's team, 
who work tirelessly on behalf of our Nation. Despite Russia's 
actions against U.S. mission diplomatic staffing, the team, 
both the American and the Russian staff, continues to serve 
with professionalism and an unwavering commitment under 
difficult conditions.
    In particular, I want to pay tribute to outgoing Ambassador 
John Teft, one of the Foreign Service's finest, for his 
dedicated leadership and courage under challenging times.
    I will be honored to work side by side with the mission 
team to ensure the continued critical work of the U.S. 
diplomatic and consular mission.
    I also want to extend my personal appreciation for those 
Americans and Russians who serve at the U.S. mission and have 
since left because our staff has been cut short by the Russian 
Government's unfortunate decision.
    Mr. Chairman, Mr. Ranking Member, and members of the 
committee, thank you for the opportunity to appear before you. 
I welcome your comments and your questions.
    [Governor Huntsman's prepared statement follows:]


                   Prepared Statement of Jon Huntsman

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, It is an honor to appear before you today as President 
Trump's nominee to be the United States Ambassador to the Russian 
Federation. I want to thank the President for his confidence in me and 
for the opportunity--with your approval--to represent the American 
people during a critical period in U.S.-Russian relations. In addition, 
I want to express my gratitude to Secretary of State Rex Tillerson for 
supporting my nomination.
    I also want to take a moment to thank my family--my wife, Mary 
Kaye, and my children Mary Anne, Abby, Liddy, Jon, Will, Gracie and 
Asha. Their love and support has sustained me through the many phases 
of my life and the different hats I have worn in both the public and 
the private sector. I could not undertake this journey without them. At 
our family's core lies the belief that service is the price we pay for 
citizenship in this great country.
    I have had the privilege of serving as Ambassador before--to China 
and to Singapore. I am fully cognizant of the profound responsibilities 
a Chief of Mission must assume. During my previous service, including 
as Governor of the great state of Utah, and in the private sector, I 
have prided myself on leading dynamic teams and achieving important 
goals by bringing together individuals from different backgrounds and 
different viewpoints. If confirmed, I look forward to working with 
colleagues from the State Department and all other U.S. Government 
agencies to advance the interests of the American people.
    While I am confident my previous experiences prepare me for this 
sensitive diplomatic mission, I am under no illusion that serving as 
the U.S. Ambassador to the Russian Federation will be easy or simple. 
Our relationship with Russia is among the most consequential and 
complex foreign-policy challenges we face. As a nuclear superpower and 
permanent member of the U.N. Security Council, we have no choice but to 
deal with Russia on a range of issues touching on global stability and 
security. Yet we also need to recognize that today, contrary to 
Helsinki Final Act principles and international law, Russia continues 
to threaten stability in Europe, including by violating the sovereignty 
and territorial integrity of its neighbors. Russia also restricts the 
human rights of its people. There is no question that the Russian 
Government interfered in the U.S. election last year and Moscow 
continues to meddle in the democratic processes of our friends and 
allies. Finally, Russia is disregarding its arms-control obligations 
and commitments.
    As we work to balance these multiple challenges, I appreciate the 
leadership and insight that this committee has demonstrated on Russia 
and, if confirmed, I welcome the opportunity to collaborate with all of 
you in the months and years ahead.
    If confirmed, I will focus on four primary approaches.
    First, I will engage Russian Government officials, from the highest 
tiers to the local level, to advance American interests. Key among our 
goals are defeating ISIS, countering terrorism, upholding arms control 
and non-proliferation obligations and commitments, finding a political 
solution to the conflict in Syria, and resolving the crisis in Ukraine 
in a way that respects Ukraine's sovereignty and restores its 
territorial integrity.
    I will also not hesitate to remind government officials that they 
are accountable for their actions. Exhibit A is the fact that 
interference in the U.S. election has led directly to the current low 
level of trust in the relationship. The views of Congress were heard 
clearly on this point in the near-unanimous passage of the Countering 
America's Adversaries Through Sanctions Act.
    Second, I will work to protect the interests of the American 
people, to include the U.S. business community, scholars, tourists and 
other American visitors who spend time in Russia and engage its 
citizens. I believe people-to-people exchanges and private interactions 
are an important way to show that our disagreements are with the 
Government of Russia, not with its people.
    Third, I will seek out Russian people from across all walks of life 
to share perspectives, to relay American values, and to deepen my 
already growing appreciation for Russia's rich and fascinating history 
and culture. As I have done in previous assignments, I look forward to 
meeting with civil society leaders, including those in the religious 
and human rights community.
    While the Russian Government has sought to limit U.S. public 
diplomacy, our diplomatic mission in Russia continues to engage 
ordinary Russians and thought leaders and maintains a diverse outreach 
program. I plan to take part in that effort, as I strongly believe 
cultural understanding is enriched by an open and respectful exchange 
of thoughts and ideas. I look forward to meeting as many Russian 
citizens as possible during my travels throughout the country.
    Fourth, but certainly not last in importance, I will work to ensure 
the safety and security of my team, who work tirelessly on behalf of 
the American people.
    Despite Russia's actions against U.S. mission diplomatic staffing, 
the team--both the American and the Russian staff--continues to serve 
with professionalism and an unwavering commitment under difficult 
conditions.
    I will be honored to work side by side with the mission team to 
ensure the continued stellar work of the U.S. diplomatic and consular 
mission. I also want to extend my personal appreciation for those 
Americans and Russians whose service at the U.S. Mission in Russia have 
been cut short by the Russian Government's unfortunate decision.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to appear before you today. I welcome 
your comments and questions.


    The Chairman. Thank you very much.
    Senator Cardin.
    Senator Cardin. Governor Huntsman, I must tell you, I have 
listened to a lot of statements made by nominees. I thought 
your statement was as clear and as direct on the major issues, 
and I applaud you for that. And I appreciate your candor with 
the committee, and the manner in which you have presented the 
challenges that you would have, if confirmed as Ambassador.
    I will tell you, our staffs always give us a series of 
areas that they want us to question on, to make sure that there 
is clarity. In each of those cases, you have already provided 
clarity in your opening statement. But that will not prevent me 
from asking a couple questions anyway.
    Let me just move on to the human rights issues that you and 
I talked about that you mentioned in your statement.
    Our concern is not with the Russian people. The Russian 
people are good people that want basic freedom. Our issue is 
with the Russian Government that has denied basic rights to its 
own citizens and has interfered with the sovereignty of other 
countries. You mentioned that you will be meeting with leaders 
in the civil society and be a platform for that type of 
discussion.
    How do you intend to use people-to-people contact between 
Russians and Americans, and using our Embassy, in order to 
further the hopes?
    In answering that question, let me just tell you that I am 
impressed when I meet with Russians, and I have met with a lot 
of Russians, where they really do look at the United States as 
their hope for their future, and giving them an avenue in order 
to be able to keep hope alive in Russia.
    How do you intend to use the position as Ambassador and our 
Embassy in Moscow to further those objectives?
    Governor Huntsman. Thank you for that question, Senator 
Cardin. And I very much enjoyed the conversation that we were 
able to have together in your office.
    For me, the United States mission, whether the Embassy or 
consulates--in this case, three throughout Russia--should be 
seen as beacons of hope, aspirational for the Russian people, 
as I know they were for the Chinese people when I served there.
    The term or title of Ambassador, although it might get you 
in a couple doors that otherwise you might not get in, should 
also be seen as aspirational and tied to U.S. values.
    I have worn this title before. I have seen when you 
actually express those values and go to the aid of those who 
are under assault from their governments, they find that there 
is hope in what America does.
    And I found that to be, Senator, our most powerful weapon 
at the end of the day. I hope to use it effectively. I hope to 
use it tactically. I hope to use it tastefully.
    But there is one certainty. And I will be out, and I will 
be active in promoting America's values. It is part of who I 
am. It is part of my family. It is part of my upbringing. And I 
think it is part of the American tradition.
    And I will never forget visiting one case in China, if you 
would allow me the reflection, a young woman who had been 
beaten because her home had been torn down by the Chinese 
authorities. There was no petitioning of government. There was 
no appeal process. It was just gone. She took up the issue 
herself, and was beaten for it, and paid a price.
    I went to visit her one day and her humble little 
apartment, the Ambassador's car driving through the back 
alleyways where an ambassador's car should not be. And I walked 
into her little room. She had been cut off from the Internet 
and a lot of other things, and she had a tear in her eye. And I 
know it was not because Mr. Huntsman arrived, but rather 
because the United States had arrived.
    I could tell just by being with her that that meant the 
world, where nobody else would show up, nobody else would stand 
behind people who do not have that kind of support locally. And 
it meant the world.
    It is reflections like that that I carry with me every day 
of my life. And I am reminded of the values that we stand for, 
whether Republican or Democrat. And I will ensure that our 
Embassy and our missions shine that light in a way that is 
aspirational, that is positive, and that does represent the 
best of the United States.
    Senator Cardin. And I can assure you have this committee 
that stands with you in these struggles. Please feel 
comfortable in working directly with us on advancing those 
issues.
    I want to raise just one more issue to let you know that we 
are deeply concerned about the security of our mission in 
Russia. We know that there have been efforts made to deal with 
the safety of our personnel in an appropriate way. There have 
been, of course, incursions and listening devices in different 
places to try to compromise the U.S. mission.
    So we invite your assessment. You mentioned the safety of 
your personnel. We want you to know that we hope that you will 
be very candid with Congress as to needs, so that we can work 
together to make sure those who are on the frontline of 
diplomacy have the protections that they need.
    Governor Huntsman. Thank you, Senator. The unfortunate 
decision by the Russian Government to cut our staff 
significantly will impact our ability to carry on anything 
representing a normal relationship. Although I have every 
confidence that those who remain, the 455, now that we have met 
what the Russians have demanded to be a sense of parity, that 
they, being among the best and brightest in the Foreign Service 
and other departments and agencies, will carry out the mission 
in a flawless way. I have no doubt about that. I have seen it 
happen before.
    For me, as chief of mission, mission security and mission 
integrity will be top of the list. With your support and 
endorsement, once I arrive at mission, the first order of 
business really is to assess what the cutbacks in personnel 
have meant in terms of overall security, because security has 
an impact on our ability to do the work, which has an impact on 
overall operating morale of any Embassy.
    And I have seen, over the years, when missions can operate 
at a high level of morale, things get done, and the work of the 
American people gets accomplished.
    So mission safety will be top of mind for me. It always has 
been. I know we have some challenges, particularly as it 
relates to the harassment of some of our diplomats, which, 
unfortunately, continues.
    Senator Cardin. Thank you.
    The Chairman. Very good.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you, Ambassador Huntsman, for being here. And thank 
you to the family as well. We have had the privilege to know 
the Huntsmans for quite a while. We lived near them in Vienna, 
Virginia, back in 1992, or 1990 to 1992, I believe. My wife, 
Cheryl, even taught one of the girls piano.
    So anyway, it is just a pleasure to be here and a pleasure 
to have you, and I just want to thank you for your willingness 
to serve, and thank the family for their willingness to 
sacrifice not just this time but many times in the past as well 
for your public service. It is a family sacrifice, certainly, 
and that is appreciated.
    Let me just ask one question. What can Congress do to help 
you succeed in your mission on behalf of the United States in 
Russia?
    Governor Huntsman. Thank you, Senator Flake. It is a 
pleasure to see you again. And thank you for the musical legacy 
that your family left with my own family, which continues to 
live on, as our daughter Mary Anne just returned from 
performing Rachmaninoff's Concerto No. 2 in China.
    Senator Flake. I think she did that in the second lesson. 
[Laughter.]
    Governor Huntsman. It is a far cry from what her dad used 
to play.
    You know, I think allowing me the opportunity to return and 
report on the key issues, whether they be Ukraine, Syria, DPRK, 
arms control, human rights, the Magnitsky Act, because I think 
we are all going to have to be together, this is executive and 
legislative, with respect to the last round of sanctions, 
because you will have a significant role in how that goes.
    You are then going to have to base your decisions on input 
from the ground, from somebody onsite. You will get all the 
information you need to read, but having somebody at post who 
can maybe help provide a different perspective will be 
important.
    So just the very thought, Senator, that we could work 
together going forward and maintain an open dialogue with you 
and your staffs on whether there is progress on these issues, 
because if there is progress, we need to move the relationship 
to a bit of a higher altitude. Right now, we are at a low 
point.
    It reminds me a little bit of 1986, and I remember that 
year. We cannot stay at the 1986 level forever. It does not 
serve the purposes of the region or the world well, nor does it 
serve the purposes of people in both countries.
    So working on those issues together, allowing me a fair 
hearing when I return to report on progress so that we can see 
if, in fact, there is reason to move the relationship to a 
different level, I think that has to be done as a joint effort 
between executive and legislative branches.
    Senator Flake. In terms of congressional travel to Russia, 
delegations from the Senate and the House, is that helpful?
    Governor Huntsman. I will just share one experience I had 
in China, where very few codels travel, because it was a tough 
gig, a tough assignment. And it was not easy always to explain 
to your constituents why you had gone to China.
    I brought forward to some of your colleagues the idea that 
maybe we could organize a large bipartisan, Republicans and 
Democrats, codel. And they spent 3 days.
    Senator Johnny Isakson was part of that. I just discussed 
it with him the other day. He still remembers that trip. In 3 
days, they were able to articulate at the highest elected 
levels of the United States some of our concerns around these 
issues in ways that the Chinese really understood in new and 
profoundly important ways. And it left a lasting impression on 
both sides.
    I would say that maybe if we could organize some such 
mission, bipartisan, we have some very important messages to 
send and to receive. I would very much welcome that opportunity 
as well.
    Senator Flake. Thank you, Mr. Chairman.
    Senator Risch. [Presiding.] Thank you so much.
    Nobody has to convince me of your ability to serve. You and 
I worked together when you were in China, and you helped us in 
Idaho considerably.
    Let me say that probably one of the most confounding things 
for the American people to understand is that, in the position 
that you are in with Russia, we have some issues with Russia, 
which would be an understatement, to say the least. Having said 
that, we also have to deal with Russia.
    I think probably the biggest challenge that you are going 
to be facing, that we are all going to be facing, is to muster 
them to assist with the North Korean situation. The world has 
to turn against North Korea in a very united fashion, and it is 
going to take both Russia and China. They have already 
indicated at least willingness to help. But there are a lot of 
people who think this cannot end well on the trajectory it is 
on, so we are going to need everybody together.
    Do you have some thoughts on that, as you move into this 
position?
    Governor Huntsman. Specific to DPRK?
    Senator Risch. Specifically to DPRK.
    Governor Huntsman. This falls into the side of the balance 
sheet that represents issues where we have some overlapping and 
common interests, and I think we should always take the time to 
explore where we have overlapping and common interests.
    I think one is DPRK. We take different approaches, and we 
have different attitudes about denuclearizing the Korean 
Peninsula, but I think, ultimately, we want greater safety in 
that region. And I think both countries share real concerns 
around proliferation. So that brings us together with Russia 
for purposes of addressing DPRK.
    I think the last round of sanctions was an expression of 
the United Nations Security Council coming together with the 
most aggressive approach to North Korea I think in history, and 
that included Russia and it included China. It is targeting 
areas of North Korea's economy that I think are most lucrative 
for them. And if the sanctions are actually implemented, and 
that will be part of our work once we are on the ground, it 
will take a toll on things like trade in textiles, which is 
maybe an $800 million category for North Korea; trade in raw 
materials of gas and oil, which is a large money category as 
well; and the remittances from workers, in the case of Russia 
maybe 50,000 or 60,000, which is another large cash flow item 
for North Korea.
    So I am heartened by the support on the last round of 
sanctions just September 11th, just a few weeks ago. We will 
see if that is not a start where we can really come together 
more and more in addressing this significant threat not just in 
Northeast Asia but, indeed, to the world.
    Senator Risch. Thank you. I appreciate your thoughts on 
that. We are all hopeful that the sanctions will be helpful in 
that regard.
    Certainly, they are as about as strict sanctions as you can 
get. The difficulty is, of course, you have a regime that 
really does not care much about the people that they govern. So 
the question is, how effective are the sanctions going to be on 
leadership versus on the people?
    Unfortunately, they have shown in the past that the 
sanctions have not been a good conduct-changer, as it would be 
in other civilized nations. So although we are hopeful, I think 
we have to think about what the next step is going to be. And 
that is not going to be pretty. There is no question about 
that.
    Thank you very much for coming.
    Are there any further questions? Well, I see none.
    Governor Huntsman. I hope we didn't scare everyone away.
    Senator Risch. We are just starting a vote on the floor of 
the Senate, so I am going to adjourn this hearing, excuse you 
and your beautiful family and those who have come here to hear 
this.
    Again, we sincerely appreciate your willingness to serve, 
Jon. Thank you so much.
    With that, the committee be at ease, subject to the call of 
the chair. [Recess.]
    Senator Risch. The committee will come back to order, and 
we will finish up with the Honorable Jon Huntsman's hearing.
    And I understand, Senator Shaheen, you have a comment, a 
question?
    Senator Shaheen. Yes, thank you very much, Mr. Chairman.
    First of all, I would like to thank Governor Huntsman for 
his willingness to continue to serve the country, and also for 
taking a few minutes to meet with me. I very much appreciated 
our conversation.
    I know that one of the things that we discussed a little 
bit was the challenges given Russia's attempts to influence our 
elections in 2016, their occupation of Ukraine, the annexation 
of Crimea, some of the other challenges facing Russian 
aggression in the Baltics and Eastern Europe, and the need to 
counter those efforts, and, at the same time, the need to look 
at places where we can work with Russia because we have mutual 
interests.
    So can you talk about how, as Ambassador, you will try and 
balance those two needs and the kinds of efforts that you think 
are helpful in responding to Russian aggression versus the 
kinds of efforts that you would employ to try to engage with 
them on areas of mutual interest?
    Governor Huntsman. Thank you, Senator Shaheen. It was a 
pleasure most recently to see you.
    I think we have to convince Russia, both bilaterally and 
multilaterally through our friends and allies, particularly 
NATO, that aggression does not pay, and there will be a 
response. We have already seen that in the case of Crimea in 
2014; in the case of Ukraine in the eastern provinces of 
Donbass; and, of course, we do not need to go back too far 
previous to that, 2008, in the case of Georgia with South 
Ossetia.
    So we have the challenges of the constant pushing that is 
taking place in Europe. We have friends and allies who we 
support and whose sovereignty we stand behind, from a security 
standpoint. And I think we have to live up and respect those 
commitments, which I think is the case.
    So we have that going on. At the same time, we have areas 
of overlapping and common interests. I think, as with any 
challenging relationship--and I would say that, in the case of 
Russia, it is a challenging but necessary relationship. We have 
to be at the table together. We have to find common ground. We 
have to solve problems. We have to move to a higher altitude. 
No question about it.
    But part of that effort is to show that we can succeed in 
what we do together. And there may be some early signs of 
success, for example, in Syria with the attempt to disarm and 
quiet the southwestern region just south of Damascus. It is 
still early days, but there may be some successes from there.
    I think DPRK is another area where we can find that there 
are successes.
    In the case of Ukraine, we are nowhere. And I would have to 
say that the main highway that leads to an improvement in U.S.-
Russia relations I think goes right through Ukraine, and that 
is living up and respecting the Minsk accord through the 
Normandy process that right now is being actively worked by 
Ambassador Volker, our Special Representative for Ukraine 
Affairs.
    It is a critically important issue not just for Ukraine, 
for the region, but for people here in the United States. So 
that will be an important area.
    Then we have issues such as space, which, for example, it 
must be the level of oxygen when you are at that level, maybe 
no oxygen at all, that keeps us together in a collaborative 
fashion. That has been a great success between the United 
States and Russia.
    The Arctic, for example, lies out there as another issue 
that I think we are going to have to come together on, and 
maybe in ways that are positive.
    So I see the balance sheet. I see the need to come up with 
a very clear and crisp list of priorities that we can meet on, 
we can hopefully make some progress on, and I can return to you 
and report on.
    Senator Shaheen. Thank you.
    Ambassador, can you talk about whether you are going to be 
willing to continue to meet with opposition figures in Russia 
and dissidents who may not agree with the Putin reign?
    Governor Huntsman. That has always been my practice at 
every other post I have managed, and it will continue to be my 
practice. Yes, Senator.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Risch. Thank you, Jeanne.
    Senator Coons.
    Senator Coons. Thank you.
    Ambassador, Governor, I really just wanted to come back to 
this restarted hearing to compliment you as one of the very 
highest quality nominees for an ambassadorial post I have seen 
in my 7 years on the Foreign Relations Committee.
    In our personal meeting and then in your opening statement, 
I think you represent the very best of public service and of 
leadership at home and abroad. And you have answered clearly, 
forcefully, and directly a whole series of questions I had for 
you about your willingness to continue meeting with opposition 
figures, standing up for human rights, the value of our Western 
European allies, and many others.
    So to you and to Mary Kaye, to your beautiful family, thank 
you for your dedication to public service.
    Let me ask two or three questions, but I look forward to 
supporting your nomination, in any event.
    How do you think we could more successfully counter Russian 
disinformation campaigns in Western Europe? As we talked about 
in my office, our core challenge here is raising the costs for 
Russia of their continued inference and of their continued 
illegal actions in Ukraine and in other places in the world.
    And do you think it is critical that we maintain sanctions 
on Russia until they end their destabilizing actions in Ukraine 
and end meddling in European elections? Or could you imagine a 
path where we would lighten some sanctions and not others?
    Obviously, given the actions of this committee, we would 
have a hand in any decision on that front.
    Governor Huntsman. My sense, Senator--and thank you so very 
much for those warm comments that you previously made.
    I think Ukraine becomes very much a centerpiece here when 
we look at sanctions. We have maybe five rungs of sanctions 
when you count the Magnitsky Act as well.
    I think a lot of the barometer on where the relationship 
goes will be based on Ukraine and the kind of success we have 
in the Donbass area, living up to the Minsk accord.
    So when I think about the different sanctions that are 
there, some from Crimea, some from Eastern Ukraine, some a 
result of meddling in our election, some tied to Magnitsky and 
more human rights-focused, I really do see the Ukraine issue as 
being critically important as a barometer of whether or not we 
can make progress in our bilateral relationship.
    With respect to the kind of hybrid warfare that we are 
seeing, which includes malign activity, goes well beyond 
conventional warfare that my generation was accustomed to, as 
was yours growing up, where you put equipment on the field and 
you practice, you train, and you hopefully never have to go to 
war, to what we see today, which is very different, and it 
includes disinformation campaigns, networks that are dedicated 
to the dissemination of news of different sources, where we see 
the support of political movements on the extreme end, for 
example, all kind of in the category of malign activities that 
are now focused on Europe and, specifically, the periphery just 
adjacent to Russia's western border.
    I think the first order of business, Senator, is to 
recognize that it does exist and not to be delusional about it. 
And then to say, what is the nature of this hybrid campaign? 
What toll or what cost is it taking on the very survivability 
of maybe a nascent democracy?
    I think that is the target, to undercut the credibility of 
the political system, which is the most nefarious approach that 
one can take to another nation-state.
    Then I think we have to say, what are the options in terms 
of the tools that one might have? There may be some options on 
the technology side with the private sector that would be worth 
looking at, and I think that we always ought to be exploring 
private-sector technology approaches.
    But then I think the work that you are doing with others, 
including Senator Murphy, on really funding some efforts that 
would maybe produce a counternarrative is really important. And 
I know it may seem to be a drop in the bucket or a start as 
compared to what we are up against, but it is a start. And I 
think that is important, to begin to work our way through what 
ultimately a longer term solution might look like.
    Senator Coons. I appreciate in your written statement, in 
your opening statement, and in our private conversation, the 
clarity and forcefulness of your view about Russia's malign 
actions in our election, in the region against our alliances in 
Western Europe, the ongoing threat they pose to human rights 
both at home and around the world, and your commitment to join 
with us in working to advance American values in this context.
    So I very much look forward to working with you. Thank you.
    Senator Risch. Thank you, Senator.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I always 
appreciate my name being name-dropped in answer to another 
Senator's question. I appreciate that.
    Senator Risch. That is called pandering in politics. It 
will get you everywhere. [Laughter.]
    Senator Murphy. Thank you very much, Governor, for taking 
on this responsibility. I really enjoyed the conversation that 
we had.
    And I do appreciate your commitment to the Global 
Engagement Center. Senator Portman and I are very pleased that 
the administration, after some question, has now transferred 
$40 million to help set up that capacity to help young nations 
build independent and objective media. I think that you will be 
instrumental in helping figure out how that plays out going 
forward.
    With that being said, let me ask a little thornier question 
here.
    I really appreciated your clear statement regarding Russian 
interference in the U.S. election, but I want to put the sort 
of elephant out on the table here. You are going to be working 
for a President who has done the opposite, who has very 
intentionally over and over again cast doubt on whether the 
Russians interfered in this election. He said, ``It's all a big 
Dem hoax.'' ``It's all a big Dem scam.''
    When he was in Poland earlier this year, he said it could 
have been Russia, but it could have been a lot of other people.
    And the results are real. The latest poll suggests that 43 
percent of Americans do not believe that Russia interfered in 
the U.S. election. Importantly, only about 9 percent of 
Republicans believe that Russia interfered.
    So just let me ask you that, because everybody is 
wondering, how do you represent to the Russians your belief, 
and all of our belief, that they unquestionably interfered in 
the U.S. election when your boss, the President of the United 
States, is engaged in a fairly intentional campaign to, at the 
very least, cloud the issue? How do you manage that?
    Governor Huntsman. I think it is a fair question, Senator.
    I think it is important to note that the ODNI has spoken, 
the Director of National Intelligence. It is a powerful symbol 
when you get the Director of National Intelligence, the 
Director of the CIA, the head of the NSA, the head of the FBI, 
who come together in unison behind their findings.
    As a consumer of their material for some years, I very 
rarely see them come together in such a coordinated fashion of 
one mind and one conclusion. So I think that expresses where 
the facts are with respect to Russia's involvement in our 
election.
    But I have to say that, for me as a former Governor, as 
Governor Kaine was, you are tasked with the integrity of your 
election system, sometimes as Lieutenant Governor, sometimes as 
Secretary of State. You have nothing more important than the 
integrity of your election process at the localist of levels. 
And to work to undercut or subvert or sow seeds of doubt or 
distrust about that system is the highest level of injury that 
I think can be laid on any local election system.
    So I will speak to it not just as a U.S. Ambassador to 
Russia but also as a somebody who had responsibility for the 
integrity of elections in my State.
    Senator Murphy. I thank you for that answer. I just do not 
want us to normalize this moment. I think your job will be made 
very difficult by the fact that you will put pressure on the 
Russians to stop interfering in our elections and others while 
you have a President of the United States who is actively--
actively--trying to cloud this question and often uses his 
personal communication device to call it a hoax.
    I just do not want us to normalize what is happening today, 
where our diplomats are toeing one line and the President is 
toeing a completely different one on his Twitter feed.
    And I greatly appreciate that people of your capacity are 
willing to do these jobs, but your job is made uniquely hard in 
a very unprecedented way.
    In my last 30 seconds, if I can just get a commitment from 
you to follow up on something we talked about in my office. 
Senator Shaheen and I, Senator Cardin, Senator Risch, and 
others, we talk about the Balkans a lot here, but not a lot of 
other people do, globally.
    This is where wars have started. It is a place that remains 
very unstable. And in the last 6 months since this President 
took office and signaled that we were sort of exiting the 
diplomatic playing field, Russia has gone into the Balkans with 
gangbusters. They have started buying up all sorts of media 
sources. They have started paying off new and interesting 
people.
    I just wanted to have you reiterate your commitment amongst 
all the things you are going to be paying attention to in 
Moscow to make sure to keep an eye on, for us, increased 
Russian interference in the Balkans. It is a very destabilized 
place that could be made much more unstable if we do not check 
that interference.
    Governor Huntsman. You have my commitment, Senator. The 
Balkans is an example of what we have described earlier, 
specifically when you point to Serbia and Kosovo.
    When we leave a vacuum behind, things happen. And I think 
this is an example of what has happened in that vacuum. I will 
watch it. I have taken note of it, and it will certainly be 
part of my discussions.
    Senator Risch. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    Governor, welcome. You are superbly qualified for this 
position. I look forward to supporting your nomination. It is a 
very tough job. I am glad the President asked you to do it.
    So I was involved in some of the circumstances that Senator 
Murphy was asking you about. I will switch and tell you an 
interesting irony.
    While I was a candidate in an election that has been much 
discussed for these reasons, my son was deployed in the 
European Reassurance Initiative. His entire Marine battalion 
was deployed between the Black and the Baltic to try to help 
reassure our allies on the border with Russia that the United 
States was still there for them and would help protect them 
against Russia. I want to ask you about that, because I am 
going to be following up with the next nominee on similar 
questions.
    In your capacity as Ambassador to Russia, should you be 
confirmed, you will also have the opportunity to dialogue with 
other European nations' ambassadors in Russia. And I think an 
important part of your job is going to be working as you can 
with the Russian Government to make sure that we advance and 
protect nations on their border that are currently under 
serious assault in many domains by Russia.
    I wonder if you could just address that aspect, how you 
might approach that aspect of your job.
    Governor Huntsman. My approach, Senator, will be to work 
with our friends and allies in Europe, specifically the G5, who 
I think are very dedicated to the issues that are prominently 
on our security agenda.
    We all know the vulnerable states. They are right on the 
periphery. And they need the help and support that NATO and, 
specifically, the United States can provide.
    I think we are better and stronger when we are coordinating 
with those who are regionally focused and on the ground and 
maybe have a slightly different perspective. And I learned this 
while serving in China and working with the G5 in other 
contexts, including North Korea, including the South China Sea.
    And I would fully expect to consult on a regular basis with 
my G5 colleagues to make sure that we are plugged into the work 
of the Supreme Allied Commander in Europe, General Scaparrotti, 
along with NATO command as well. I very much want to make 
visits to both those areas to ensure that we are all of one 
mind as it relates to, for example, understanding the last 
training exercise that is playing out in Belarus even as we sit 
here that will go on through September 20th.
    I am not sure that they have invoked the Vienna documents 
that are required, as far as transparency is concerned. But it 
may be that they should have. Nobody quite knows exactly the 
numbers of troops involved, or exactly how this is likely to 
play out.
    That is not good. That does not serve the interests of 
security and stability in Europe.
    So I think that we are together on the issues that will 
matter most, and I look forward to working with our friends and 
allies on these very issues.
    Senator Kaine. You also will have a very unique 
perspective, having been Ambassador to China, China and Russia 
both being such critical nations, and both nations where we 
have many points of disagreement, but there are areas where we 
need to work together.
    For example, we had a briefing recently. Though it was 
classified, this portion of it was not. It was about North 
Korea. And the Trump administration national security officials 
said over and over again: We are pursuing diplomacy, if we can. 
If it is a 10 percent chance or 5 percent chance or 3 percent 
chance, we need to pursue diplomacy and a diplomatic resolution 
of the situation with North Korea.
    I assume you share that view. Would you also share my view 
that pursuing a diplomatic resolution with North Korea would 
likely involve having Russia and China involved in those 
discussions?
    Governor Huntsman. Russia and China were both, of course, 
original members of the six-party talks, discussions that I 
participated in while in Beijing. They are both critical 
members of that process.
    China, of course, is absolutely indispensable, in terms of 
delivering messages and controlling the flow of goods in and 
out of North Korea. They have influence and clout that no other 
nation-state has in Pyongyang.
    I think second to that would be Moscow. And, therefore, the 
dialogue with Russia on DPRK, on denuclearization, on calming 
the region down, is absolutely critical.
    And to think that we were able to get a United Nations 
Security Council resolution on September 11.
    Senator Kaine. Without a veto.
    Governor Huntsman. Without a veto. That speaks to textiles 
and apparel, an $800 million category; gas and oil; remittances 
of 50,000 to 60,000 North Koreas in Russia, which is worth 
hundreds of millions of dollars. These are big deals.
    So for us, it really comes down to, are the sanctions going 
to be implemented? That is where we have had difficulties in 
the past. Will China do what they signed up to do? Will Russia 
do what they have signed up to do?
    That is where you roll up your sleeves and you get to work.
    Senator Kaine. Might I ask one more question, Mr. Chair? Or 
do I need to wait for second round?
    Senator Risch. Well, please be brief, because we do have 
another nominee that we have to wrap up.
    Senator Kaine. I will be very brief.
    Senator Risch. We are going to have questions for the 
record.
    Senator Kaine. I will be very brief.
    Having acknowledged that China and Russia would be 
critical, if there was an ability to find a nuclear deal of 
some kind with North Korea, you would also agree, would you 
not, that their belief about whether or not the U.S. would 
follow a deal, if we reached it, that could be important to 
them in determining how much they wanted to work with us to 
press for a deal?
    Governor Huntsman. Well, obviously, there are trust issues 
all around.
    Senator Kaine. Right.
    Governor Huntsman. And they constantly have to be worked on 
to shore up that trust deficit. The deployment of THAAD, for 
example, most recently, among other things, is causing 
consternation with both China and Russia.
    But we have worked together successfully in the six-party 
context, so I have seen examples of where three of us can, in 
fact, take on an issue, share information, work from a common 
sheet, a common playbook, and try to get things done.
    Senator Kaine. Right. Thanks for your continued willingness 
to serve.
    Senator Risch. Thank you.
    Governor, Ambassador, thank you so much for taking this big 
responsibility on.
    Thank you to your family, who is also willing to undertake 
those sacrifices.
    Senator Cardin. Mr. Chairman, I just want to thank the 
Governor also.
    On one thing that Senator Kaine said, enforcement of the 
sanctions on North Korea, very important; enforcement of the 
sanctions against Russia, very important. So we are going to 
need your help in enforcing the sanctions. We are already 
seeing, in regard to a sale with Turkey, that the sanctions may 
be, in fact, being violated.
    So we are going to need your attention, if we are going to 
be effective in the messaging and action against Russia.
    Senator Risch. Tough balancing act.
    For members of the committee, we will keep the record open 
until the close of business on Thursday. That includes members' 
ability to submit questions for the record.
    So again, thank you so much. You and your family are free 
to go. Thank you.
    Mr. Mitchell, would you care to join us?
    Mr. Mitchell, thank you so much for joining us. The 
position that you have been nominated for is certainly an 
important position. I apologize for our time today. We are 
going to be on a bit of a short string, since we have a vote 
that starts shortly this afternoon.
    So instead of making an opening statement--I do not want to 
preach on about Europe and how important it is to us. I am 
going to pass on that and get to your opening statement.
    Senator Cardin. I have already commented a little bit 
earlier, so we can get right to the witness.
    Senator Risch. Thank you.
    So, Mr. Mitchell, the floor is yours.

 STATEMENT OF A. WESS MITCHELL OF VIRGINIA, TO BE AN ASSISTANT 
       SECRETARY OF STATE, EUROPEAN AND EURASIAN AFFAIRS

    Mr. Mitchell. Thank you, Senator Risch. Let me also say how 
much I appreciated earlier Senator Cornyn from my home State of 
Texas giving me a very warm introduction, and I am honored to 
have his backing.
    Chairman Corker, Ranking Member Cardin, members of the 
committee, it is a real privilege to appear before you today as 
nominee for the position of Assistant Secretary of State for 
European and Eurasian Affairs. I am thankful to President Trump 
and also Secretary Tillerson for the confidence that they have 
placed in me to undertake this important role.
    I am proud to have here with me today a support battalion 
of my family members: my wife, Elizabeth; our children Wesley 
and Charlotte, who I think are terrorizing folks in the 
hallway, so I apologize to anyone who has experienced that 
today; my mom, Dessa Mitchell; my aunt, Cindy Harris; and my 
father- and mother-in-law, Ed and Linda Leon.
    As Senator Cornyn said, I am a sixth-generation Texan. I am 
the first person in my family in more than 150 years to pursue 
a career north of the Red River. Like my wife, who is a 13-year 
veteran of the Department of Defense, I came to Washington to 
serve my country.
    Twelve years ago, I co-founded the Center for European 
Policy Analysis, a think-tank that is now widely recognized for 
the quality its research and analysis on Central Europe. As 
president and CEO, I have overseen CEPA's growth into a truly 
transatlantic organization, with offices in Washington and 
Warsaw, and personnel in several European countries.
    In this role, I have built close and effective 
relationships with senior leaders across the NATO Alliance. I 
have had the honor of working with previous Assistant 
Secretaries and seeing the skill, dedication, and patriotism of 
the men and women of the Bureau of European and Eurasian 
Affairs.
    And I have worked closely with many of you and your staffs 
on this committee on some of the most important recent pieces 
of legislation affecting America's relations with Europe and 
Russia.
    What animates my work is the belief that America's 
alliances are the backbone of our strength and influence as a 
great power. Seventy years ago, Americans helped to create a 
new Western order, grounded in Atlantic cooperation. They did 
so because they understood that America has an enduring 
strategic interest in removing what an earlier generation of 
U.S. policymakers called the ``firetrap'' of geopolitics in the 
western Rimland of Eurasia. This region was the birthplace of 
three global wars in the 20th Century, two hot and one cold.
    The alliance that we built after 1945 and expanded after 
1989 laid the foundation for unprecedented freedom, stability, 
and prosperity in much of the world.
    As President Trump said in Warsaw, ``There is nothing like 
this community of nations. We must have the courage and desire 
to preserve'' it.
    If confirmed, I will view as my central task the 
preservation and strengthening of the Western alliance to 
ensure that my young children are able to enjoy the benefits of 
peace and abundance that we have known in our lifetimes.
    If confirmed, my first priority will be to give weight and 
substance to the administration's affirmation of America's 
commitment to Article 5 of NATO. Our allies, especially 
frontline states between the Baltic and Black Seas, must know 
that the defense of the West rests on an unwavering commitment 
and covenant.
    To be credible, it requires a strong forward posture and a 
willingness by all allies, including the largest and wealthiest 
European states, to bear their full share in defense spending.
    The fight against ISIS must also be an urgent priority. We 
need all allies to assist robustly in defeating ISIS, to share 
information on terrorist threats, and address the sources of 
migration and extremism in North Africa. We must work closely 
with Europe on Syria, Iran, and North Korea, and rally support 
for the new U.S. strategy for Afghanistan.
    And we must work to keep Turkey, long the linchpin of 
NATO's southern flank, firmly anchored in the transatlantic 
community.
    In both the east and south, we must be sober-minded about 
Russia. It is in the interests of the American and Russian 
peoples to lower tensions between the world's two largest 
nuclear powers. At the same time, the Russian Government must 
understand that a return to normal relations will be impossible 
as long as it attacks its neighbors, abuses its people, and 
attempts to undermine confidence in America's institutions and 
those of our allies.
    If confirmed, I will urge Moscow to cease its destabilizing 
activities in Ukraine, and to end its support for hostile 
regimes in Syria and Iran.
    America is greatest when our alliances are strong and our 
trade is vibrant. If confirmed, I will work to strengthen the 
trillion-dollar transatlantic economy that gives jobs to 
millions of Americans. I will build on the administration's 
efforts to help Europe enhance its energy security through 
diversification of energy sources and routes, and highlight the 
viability of American LNG as an option for these efforts.
    In all of these areas, we must be clear about what we stand 
for as an alliance. The glue that holds us together is greater 
than a treaty or a set of institutional rules. It is the glue 
of a common civilization, the West, grounded in freedom, 
democracy, and rule-of-law, and united by bonds of culture and 
shared sacrifice.
    As Secretary Tillerson said, ``American leadership requires 
moral clarity.'' We are strongest when our values and those of 
our allies are aligned, and when we hold our rivals accountable 
for human rights abuses at home.
    If confirmed, I will use the relationships I have forged in 
Europe, among the talented staff of the State Department and 
here on the Hill to advance U.S. interests, values, and 
prosperity in Europe. And I will use the leadership skills 
gained at CEPA to help realize Secretary Tillerson's vision of 
making every State Department dollar count for the American 
taxpayer.
    I am humbled to be considered for this position. Mr. 
Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to be here. I welcome your 
comments and questions.
    [Mr. Mitchell's prepared statement follows:]


                 Prepared Statement of A. Wess Mitchell

    Thank you for your kind introduction, Senator Cornyn. I am honored 
to have the backing of the Senator from my home state of Texas.
    Chairman Corker, Ranking Member Cardin, members of the committee, 
it is a privilege to appear before you today as nominee for the 
position of Assistant Secretary of State for European and Eurasian 
Affairs. I am thankful to President Trump and Secretary Tillerson for 
the confidence they have placed in me to undertake this important role.
    I am proud to have sitting behind me today my wife Elizabeth 
Mitchell, my mother Dessa Mitchell, my aunt Cindy Harris, and my 
father- and mother-in-law Ed and Linda Leon.
    I am a sixth-generation Texan--the first person in my family in 
more than 150 years to leave the state of Texas and pursue a career 
north of the Red River. Like my wife, who is a 13-year veteran of the 
Department of Defense, I came to Washington for one reason: to serve my 
country.
    My experience in Europe goes back two decades. I have lived in 
Europe, studied its languages, history and geopolitics, and completed 
my doctorate at a German university. Twelve years ago, I co-founded the 
Center for European Policy Analysis, a leading think-tank widely 
recognized for the quality and breadth of its research on Central 
Europe. As President and CEO, I have overseen CEPA's growth into a 
truly transatlantic organization, with offices in Washington and Warsaw 
and personnel in several European countries. In this role, I have built 
close and effective relationships with senior leaders across the NATO 
Alliance. I have had the honor of working with three previous Assistant 
Secretaries and seeing the skill, dedication and patriotism of the men 
and women of the Bureau of European and Eurasian Affairs in action, 
both here and in our embassies abroad. And I have worked closely with 
many of you and your staffs on this committee on some of the most 
important recent pieces of legislation affecting America's relations 
with Europe and Russia.
    What animates my work is the belief that America's alliances are 
the backbone of our strength and influence as a Great Power. Seventy 
years ago, Americans helped to create a new Western order, grounded in 
Atlantic cooperation. They did so not out of charity, but because they 
understood that America has an enduring strategic interest in removing 
what an earlier generation of U.S. policymakers called the ``firetrap'' 
of geopolitics in the western rimlands of Eurasia. This region was the 
birthplace of three global wars in the 20th Century-two hot and one 
cold. The alliance that we built together after 1945 and expanded after 
1989 has been a guarantee against the return of that old cycle of 
bloodshed. It has laid the foundation for unprecedented freedom, 
stability and prosperity in much of the world. As President Trump said 
in Warsaw, ``there is nothing like this community of nations. The world 
has never known anything like it . . .  [and] we must have the courage 
and desire to preserve'' it.
    If confirmed, I will do exactly that. I will view as my central 
task the preservation and strengthening of the Western alliance to 
ensure that my young children are able to enjoy the benefits of peace 
and abundance that we have known in our lifetimes.
    Succeeding in that task will require us to confront the pressures 
bearing down upon Europe from the east and south, as well as the crisis 
of confidence inside Western societies.
    If confirmed, my first priority will be to give weight and 
substance to the statements that the President, Vice President and 
Secretaries of State and Defense have made affirming America's 
commitment to NATO Article 5. Our allies, especially frontline states 
between the Baltic and Black Seas, must know that the defense of the 
West rests on an unwavering covenant. To be credible, it requires a 
strong forward posture. And a willingness by all allies, including the 
largest and wealthiest European states, to bear their full share in 
defense spending.The fight against ISIS must also be an urgent priority 
for U.S. diplomacy in Europe. Since 2014, there have been more than 150 
attacks plotted or carried out on European soil. We must do more to 
stop this insidious threat. We need all allies to assist robustly in 
defeating ISIS, share information on terrorist threats, and address the 
sources of migration and extremism in North Africa. We must maintain a 
common approach with the European Union as a global partner, work 
closely with allies on Syria, Iran and North Korea, and rally support 
for the new U.S. strategy for Afghanistan. And we must work to keep 
Turkey, long the linchpin of NATO's southern flank, firmly anchored in 
the transatlantic community.
    In both the east and south, we must be sober-minded about Russia. 
It is in the interests of the American and Russian peoples to lower 
tensions between the world's two largest nuclear powers. At the same 
time, the Russian government must understand that a return to normal 
relations will be impossible as long as it attacks its neighbors, 
abuses its people and attempts to undermine confidence in America's 
institutions and those of our allies. If confirmed, I will urge Moscow 
to cease its destabilizing activities in Ukraine, Georgia, Moldova, and 
the Balkans and to end its support for hostile regimes in Syria and 
Iran. I will also support efforts to reduce the vulnerabilities of our 
allies and partners to corruption, disinformation, and other forms of 
malign influence that Russia uses to weaken their institutions and 
civil societies.
    America is greatest when our alliances are strong and our trade is 
vibrant. If confirmed, I will work to strengthen the trillion-dollar 
transatlantic economy that gives jobs to millions of Americans. I will 
build on the administration's efforts to help Europe enhance its energy 
security through diversification of energy sources and routes. And I 
will highlight the viability of American LNG as an option for these 
diversification efforts.
    In all of these areas, we must be clear about what we stand for as 
an alliance. The glue that holds us together is greater than a treaty 
or set of institutional ``rules.'' It is the glue of a common 
civilization--the West--grounded in freedom, democracy, and rule-of-
law, and united by bonds of memory, culture and shared sacrifice. As 
Secretary Tillerson has said, ``American leadership requires moral 
clarity.'' We are open and free societies, and we welcome those who 
wish to join our alliance. We are strongest when our values and those 
of our allies are aligned, and when we hold our rivals accountable for 
human rights abuses at home.
    Whatever America seeks to do in the world, we are more apt to 
succeed when the West acts together. If confirmed, I will use the 
relationships I have forged over the past decade throughout Europe, 
among the talented staff of the State Department and here on the Hill 
to advance U.S. interests, values and prosperity in Europe. And I will 
use the executive leadership skills I have gained at CEPA to help 
realizeSecretary Tillerson's vision of making every State Department 
dollar count for the American taxpayer.
    I am humbled to be considered for this position. Mr. Chairman, Mr. 
Ranking Member, and members of the committee, thank you for the 
opportunity to be here today. I welcome your comments and questions.


    The Chairman. Thank you very much, Mr. Mitchell.
    Senator Cardin.
    Senator Cardin. Mr. Mitchell, welcome. Again, as I told 
you, I very much appreciate your willingness to serve our 
country.
    The Obama administration takes pride that they were able to 
get Europe to have consistent sanctions against Iran that the 
United States initially brought forward. And they have a right 
to have that pride, because that was the effective leverage on 
Iran to get them to sit down and negotiate. No question about 
it.
    But I want to take you back a little bit in history in this 
committee, when Congress passed the enhanced sanctions against 
Iran. The administration was not quite as excited as we were 
taking up that sanction legislation, because it took away some 
of the flexibility that any administration likes to have.
    After it passed, they recognized that it gave them 
additional strength in dealing with our European partners to 
get tough sections against Iran that ultimately led to 
negotiations.
    My point is, with Russia, we are in a very similar 
situation. This Congress has spoken with a very, very strong 
voice, 98-2 in the United States Senate.
    These are tough sanctions. And it gives the President a 
much stronger hand. But he has to play the hand.
    You are going to be the key person in the administration 
working with our European partners to get consistency in the 
sanctions imposed by the United States and Europe against 
Russia, so they know that the impact on their economy will be 
much stronger if they do not change course in their behavior 
against Europe and the United States.
    Do we have your commitment that you are going to carry out 
not only the law but carry out with enthusiasm these tools that 
are available to get Europe consistent with the United States 
in imposing additional sanctions against Russia?
    Mr. Mitchell. Thank you for that question, Senator. And I 
enjoyed the time that we had together. I want to thank you for 
your leadership, particularly on human rights issues and 
Helsinki Commission.
    The Countering America's Adversaries Through Sanctions Act, 
as you say, this was a 98-2 vote and reflected the will of the 
American people. I think the Secretary has been clear that he 
views it in that light, and President Trump said in Warsaw of 
Russia that this is a country that tests our will, undermines 
our confidence, and challenges our interests.
    If I am confirmed, you have my commitment to executing and 
implementing the terms of this legislation as it was intended, 
obviously in close coordination with the Secretary.
    Senator Cardin. I thank you for that answer, but I want you 
to go further than that. I want you to work with European 
allies so that they have consistent sanctions. One of the 
things that we frequently hear about is that, the same thing 
with North Korea, if we do not get consistency on sanctions, 
you can drive a truck through the economic penalties.
    So we need Europe, which is closer with Russia on economic 
activity, to follow U.S. leadership. That is where I need your 
help. I should not say that I need your help. It is the country 
that needs your commitment.
    Mr. Mitchell. Let me say that I agree fundamentally that 
our sanctions are most effective when we have unity with the 
Europeans.
    I think, in recent years, we have seen, through both 
Republican and Democratic administrations, a recognition that 
the utility of our sanctions increases in direct proportion to 
the scale of our diplomatic engagement with European allies. 
The tools that Congress has made available are very important 
tools for raising the costs vis-a-vis the Russian Government. 
And I think a clear message has been sent through that 
legislation.
    I take your point, and I particularly want to emphasize the 
role that U.S. diplomacy will play with our allies in 
addressing the concerns that have been raised specifically 
about Section 232 involving European energy infrastructure, and 
also Section 231 on defense contracts.
    I think these are immediate sources of concern where U.S. 
diplomacy will need to be very focused on working closely with 
our European allies to help them understand the nature of 
legislation. And as the legislation explicitly states, to be 
effective, we want this to be coordinated with our allies.
    If confirmed, that will be my approach.
    Senator Cardin. Of course, we made concessions in both of 
those areas to deal with European concerns. The European 
ministers were in our office, Senator Corker's and my office, 
asking for modifications, which we put into the bill to take 
care of their concerns. They may very well be saying something 
differently to a different audience, but there was clearly an 
effort made for that to happen.
    In reviewing the legislation, we found areas where Europe, 
in some cases, had stronger sanctions than the United States. 
We have toughened our sanctions to equal what Europe has done.
    I still tell you that you are going to hear accounts that, 
``We cannot do this. We cannot do this.'' And then after we all 
do it, they take credit for saying that we finally got unity 
and we are making a difference.
    It takes leadership. It takes leadership to make this work. 
The stakes could never be higher, in what Russia is doing 
today.
    You are going to be the key person, because you are going 
to be the conduit through to all of the different embassies in 
Europe. And you are going to have ambassadors who are not going 
to want to be bothered with another thing on their plate. And 
yet, I do not know of a higher priority than what Russia is 
doing against our interests and getting an effective way for 
sanctions to work.
    My last point would be, we expect you to work very closely 
with this committee on this issue. This is not a partisan 
issue. As you know, this is clearly and overwhelming support.
    We need your commitment that you will work with us and keep 
us informed as to the progress that we are making with Europe 
and the sanctions against Russia.
    The last point I would ask is that you mentioned the 
Helsinki Commission. On behalf of Senator Wicker, it is the 
regional commission that is directly involved in your 
portfolio. We would ask that you cooperate with the Helsinki 
Commission, you actually have representation there, but that 
you would work with the Helsinki Commission on these issues.
    I would ask, in both of those cases, that you would work 
with our committee and work with the Helsinki Commission.
    Mr. Mitchell. Well, I take that to heart. Let me say that I 
have worked a lot with folks on this committee in the past and 
their staff. I have also spent time with some of my 
predecessors in this post, understanding how they have 
approached Congress. And you can expect to see, if I am 
confirmed, my full engagement.
    Senator Cardin. Thank you.
    Senator Risch. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Mitchell, congratulations on your nomination. And thank 
you for your willingness to consider service in this post.
    And I appreciate the time that you spent with me talking 
about the challenges facing our international diplomatic 
efforts, and the State Department itself.
    You will have a large public diplomacy shop, and the office 
is charged with implementing Russian policies, as you have 
testified to, including our efforts to counter Russian 
disinformation.
    How do you expect the European Bureau to work with the 
newly constituted Global Engagement Center to address the 
disinformation that is coming from Russia?
    Mr. Mitchell. Thank you, Senator, for that question. And I 
appreciated having the opportunity to spend time with you 
recently. I want to thank you for the leadership that you have 
shown on so many of the issues that are close to CEPA's heart 
and the work that we have done, and also for your work on the 
subcommittee, specifically on the State Department.
    I think we have to start by recognizing that, in the field 
of disinformation, the Russian Government takes a whole-of-
government approach. It is overt and covert activities, malign 
influence, both among European allies and also in the United 
States.
    CEPA, in our work, I would like to say that we were a 
pioneer in calling attention both to the types of methods, 
strategies for addressing them, and the scale of the detriment 
that this can do to the fundament of the West.
    We also helped with engaging with some of the offices here. 
As the legislation on the GEC process was being crafted, we 
provided briefings from our analysts and fellows from both here 
and those we have in the region. And we have worked very 
closely with NATO StratCom to understand the approach that they 
are taking, and obviously with the new Hybrid Fusion Cell that 
the European Union is setting up.
    I would simply say that for us to be effective in the 
disinformation space, we have to have a whole-of-government 
approach. And I think what the legislation provides, that 
Senators Portman and Murphy have put forward, is a basis for 
that, for synchronizing our efforts.
    And if I am confirmed, I will work very closely to ensure 
that the Bureau of European and Eurasian Affairs coordinates 
closely with the GEC as it turns its focus more toward Russia.
    Senator Shaheen. And do you think we have a whole-of-
government approach at this point?
    Mr. Mitchell. I think we have an awareness that we did not 
have in the past. I think we have also learned a lot in the 
last couple years, including from our European allies, who have 
pioneered areas that we can explore for combating this.
    I think we are moving toward a whole-of-government 
approach, but I think there is no shortage for that tool and 
capacity that prompts coordination. And I think that my 
understanding of the mandate given to the GEC and its resources 
is that it provides that instrument.
    Senator Shaheen. And do you think that it is currently 
doing that?
    Mr. Mitchell. Well, my understanding of the GEC in its 
current role, until this mandate was put forward and the 
resources were put forward, is that it is doing very good work, 
including on areas other than Russia. I think it looks at ISIS 
and other parts of the globe. But I think the new direction and 
the new resources will increase its capacity to do that more 
effectively.
    Senator Shaheen. We had a hearing last week in the Helsinki 
Commission on this very issue, on disinformation. It focused 
mostly on Russia but also on the challenge that that presents 
to America, the fact that we have a lot of people who really do 
not question the accuracy of media reports, who get news from 
social media that may not provide a filter for how accurate 
that news is.
    And we talked about the issue of who is in charge. And the 
consensus of the people who testified there is that we do not 
currently have someone in charge of heading up these efforts.
    So not only do we not have a whole-of-government approach, 
we do not have somebody charged with doing this, and we do not 
have somebody currently named to do that.
    So I guess I would ask, do you agree with that? And who 
should take that role?
    I have had a chance to ask in the Armed Services Committee 
members of our military whether this is something that they 
should have a hand in. They used to. Russia has just set up a 
new unit in their military that is responsible for information 
and cyber information. So what I was told is that that is not 
the role of the military.
    As you know, after the Cold War, we disbanded the U.S. 
Information Agency and so much of the apparatus that was 
designed to counter disinformation.
    So from your perspective, what is the role of the State 
Department? Who should lead this effort? And how do we get to 
that whole-of-government approach?
    Mr. Mitchell. Well, I think that is a very important 
question. I think we have allies both at the NATO level, at the 
nation-state level, and at the EU level, who are grappling with 
similar questions, in part because, as pluralistic societies 
who value an open media discussion, we have to balance security 
and privacy. So I do not think that we are unique or alone in 
realizing the magnitude of this problem and seeking to 
understand how we use our tools.
    Even before the new direction and legislation on GEC, the 
Bureau of European and Eurasian Affairs has been active on this 
issue, providing resources for media training in countries of 
Central and Eastern Europe, working to increase cyber defenses 
in the period since the interference in the elections.
    I would say that, moving forward, what is important is 
that, now that it has been made clear that the Global 
Engagement Center will have this as an invigorated mandate, 
that as the resources come into place and leadership comes into 
place for GEC, I think coordination within the department, 
obviously with the bureau because of the vast reservoir of 
expertise on the situation on the ground--which I think will be 
indispensable for the GEC to be able to do its job will, but 
also in the interagency process.
    Beyond that, not being privy to where the administration 
wants to take that specific set of issues, I would not want to 
speculate further. But I will say that I strongly support the 
new direction of the GEC and would be committed, if I am 
confirmed, to ensuring its close coordination with the Bureau.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Risch. Thank you.
    Senator Coons.
    Senator Coons. Thank you, Mr. Mitchell, for your 
willingness to serve.
    I thank your family as well for your willingness to support 
Mr. Mitchell in his service.
    Let me ask you two questions, if I might.
    First, I have not had a chance to review all of President 
Trump's remarks today at the United Nations, but I understand 
he continued to express opposition to the Iran deal, the JCPOA, 
something that took a great deal of work and coordination to 
pull together, both our European allies and our partners in 
that deal, but adversaries in other means, Russia and China, 
and to provide some constraint for Iran's nuclear ambitions.
    Are you concerned that, if President Trump fails to certify 
Iranian compliance with the nuclear deal, absent any credible 
evidence of Iranian cheating within the four corners of the 
deal, that that will deeply strain our relations with our 
European partners? And if we do so, they will then refuse to 
agree to the snapback sanctions provided for in the JCPOA, and 
it will be even harder for us to craft a meaningful sanctions 
regime to force North Korea to back off its nuclear ambitions?
    Mr. Mitchell. Thank you for that question, Senator. I think 
it is an absolutely crucial question and issue.
    The administration is currently undertaking a review of not 
only JCPOA but our broader approach to Iran. I have not seen 
the latest comments that were made in New York, but I do know 
that Secretary Tillerson has been clear that what we want to 
take account of is the broader array of Iranian activities, 
including its ballistic missile programs, its support for 
terrorists in the region. And I think that bigger picture gives 
us a better sense of where the Iranians are at than just the 
terms of the JCPOA.
    My understanding is that a review is underway that, while 
that review is underway, we are emphasizing the strict 
implementation of JCPOA.
    Obviously, whatever direction things take with Iran, unity 
with our European allies will be absolutely crucial. And I do 
know that there are possible points of daylight between the 
United States and some of our allies and some of our allies in 
Europe on the future of JCPOA.
    I cannot speculate on the direction that the 
administration's review of this is going to take, but I can 
assure you that, if I am confirmed, it will be a very high 
priority to ensure that we have a high degree of coordination 
with our European allies and with the European Union in 
ensuring the effectiveness both of JCPOA and the broader 
Iranian strategy.
    Senator Coons. You said in your opening statement that we 
must work to keep Turkey, long the linchpin of NATO's southern 
flank, firmly anchored in the transatlantic community. That 
will be a challenging task.
    How would you recommend we proceed in retaining some 
relationship with Turkey, given all the different tensions that 
have really led to significant degradation in our relationship 
with Turkey?
    Mr. Mitchell. Well, it is an important question. Thank you 
for that.
    I will start by saying Turkey is an absolutely 
indispensable NATO ally of the United States. I do not think 
there is a country in the region or in NATO that could provide 
for U.S. national security what Turkey is currently providing 
not only in supporting our efforts, in the efforts to defeat 
ISIS, but in the broader regional strategic equation vis-a-vis 
Syria, Iraq, Afghanistan, Iran, the Black Sea littorals, the 
relationship with Russia.
    So at the strategic level, I think it is absolutely 
critical that we sustain engagement with the Turkish 
Government. At the same time, in the period since the attempted 
coup, the department has raised very sincere concerns about the 
state of rule of law, human rights, and religious minority 
issues inside Turkey. And there have been developments that are 
very concerning.
    I think we have to balance our approach in continuing to 
work closely with the Turks as a strategic partner in the 
region. But I do not think that we should be shy about raising 
our concerns in these areas. And I think, if I am confirmed, in 
coordination with the Secretary, my approach would be to 
emphasize the common interests that we have in expanding our 
strategic engagement, but in an appropriate manner to continue 
to raise those concerns, to look for ways to work closely with 
Turkish civil society, to expand our people-to-people contacts. 
I think there is a lot more that could be done in those areas.
    Senator Coons. Thank you. Mr. Mitchell, I believe that we 
are safest and strongest when we lead with our values. Our 
values do not always make our allies happy, because they often 
do not share them. But I think an analysis of our interests has 
to include our values, particularly with regards to human 
rights and open society.
    So I thank you for that answer. I look forward to working 
with you. Thank you.
    Mr. Mitchell. Thank you.
    Senator Risch. Thank you, Senator Coons.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    It is good to see you, Mr. Mitchell. Thank you for stepping 
up and being willing to serve. I look forward to supporting 
your nomination when it comes before the United States Senate, 
and working very closely with you as the ranking member on the 
Subcommittee on Europe.
    But as I did with Governor Huntsman, I want to just 
acknowledge some underlying realities with you for a moment, 
and get your take on them.
    This administration has opened up a pretty open war with 
the idea, concept, and funding for diplomacy. The budget 
proposed a 40 percent reduction in funding for the State 
Department. The hiring freeze seems to apply to only one agency 
today, which is the State Department. There has been a ban or 
at least a slowdown on promotions and lateral transfers within 
the agency.
    You are going to be asked for your counsel by the Secretary 
and perhaps by the President as to whether to, once again, reup 
a request for a 40 percent reduction in funding, whether to 
continue the hiring freeze, and whether to slow down transfers 
and promotions.
    Can you just share with us what your advice will be when 
asked whether to continue these policies that many of us see as 
leading to an evisceration of diplomacy abroad?
    Mr. Mitchell. Thank you for that question, Senator Murphy. 
And I also want to express my gratitude for the meeting that we 
had, and the years of cooperation that we have had with your 
office, and your leadership on so many issues that are close to 
our heart at CEPA.
    The Secretary has been clear that he wants to see a better 
alignment of American priorities and resources at the State 
Department. My understanding of the redesign is that it 
recently completed its second phase. This was an employee-led 
process.
    Secretary Tillerson has experience in the private sector 
with large-scale redesign of organizations. And my 
understanding is that the targeted areas in this process are 
areas where the Secretary would like to see greater efficiency.
    I have not been privy to those discussions. I do know that 
the Secretary has said, as it relates to the Bureau of European 
and Eurasian Affairs, that he would like to see a priority in 
our work on those parts of Europe that have been under pressure 
or duress or malign influence from the Russian Federation, and 
those parts of Europe that we are working most closely with to 
defeat ISIS.
    I think those priorities are correct. I do not know what 
direction or final form the budget discussion will take. If I 
am confirmed, I will make best and highest use of the resources 
at my disposal. I certainly agree with the priorities the 
Secretary has outlined. And I think, in some of these areas, it 
is not a moment when we want to decelerate.
    So I have a lot of respect for the talented people in the 
bureau. I would like to, if confirmed, get my feet on the 
ground, have a listening tour, talk to people in the bureau, 
understand their priorities and concerns. And until I have done 
that, I would not be willing to really speculate.
    Senator Murphy. You know how much respect I have for you, 
and how enthusiastic I am for your willingness to take this 
position. But just, with all due respect, it is not an 
employee-driven redesign. It is a top-down-driven redesign. I 
would be challenged to find a single employee who thinks that 
many of these policies are in the best interest of the State 
Department.
    But you will have something to do with that. You will be 
able, once you are in this position, to be able to make sure 
that the people who work under you have something to say about 
this. But that is not what is happening right now.
    One last question on trade policy. We spent a lot of time 
in this committee over the past 4 years talking about a 
bilateral trade agreement with the European Union. I heard the 
Trade Representative say the other day that that is essentially 
on hold, as we all knew. But the danger is that it is going to 
be substituted by replacement bilateral trade agreements, in 
particular, one that the President has floated with England, 
with the United Kingdom.
    As you know, that would help the fragmentation of Europe. 
That would be a big win for those who want Europe to fall 
apart, the idea that the U.S. will not do a deal with the EU 
and instead will pursue deals with countries that withdraw from 
the EU.
    What is our current position? Are you going to be asked to 
negotiate a bilateral trade agreement with Great Britain, 
should they withdraw? Or are you going to be asked to negotiate 
a bilateral trade agreement with the European Union?
    Mr. Mitchell. Well, this is obviously a very important 
issue. I have been on the record in the past strongly in 
support of robust transatlantic trade agenda, of T-TIP.
    The relationship that we have with the United Kingdom is a 
very old and very special relationship. This is a relationship 
that, in strategic terms, is vital to us. But also, 
economically, the United Kingdom is our largest single source 
of foreign direct investment, a conduit for a major swath of 
our trade with Europe.
    And I think our priority is to ensure an amicable divorce. 
And our goal is to see that we end the process of Brexit both 
with a strong strategic and economic relationship with the EU 
and a strong strategic and economic relationship with the U.K.
    President Trump has been clear that he wants to see a 
vibrant bilateral trade agreement with the United Kingdom. My 
understanding is that we are in informal talks, the scoping 
exercises that are underway with the U.S.-U.K. trade and 
investment working group.
    I think we have to strike a balance here between allowing 
the EU and U.K. to flesh out the substance of their own deal, 
not least because whatever arrangements we come to the British 
will be contingent on the deal, but also sending a signal to 
American businesses and to the British as our allies that there 
is a process underway for establishing some groundwork or some 
principles for the deal that will eventually be done between 
the United States and the U.K.
    The lead on this is obviously USTR. If I am confirmed, I 
look forward to working closely with the folks at USTR and 
other relevant agencies to ensure that we end this process with 
a strong trade relationship both with the EU and with the U.K.
    Senator Murphy. I just want to go on the record one more 
time saying I think that would be an enormous strategic 
mistake. If Europe is to disintegrate, the responsibility for 
it will lie at the feet of this administration, if it pursues a 
bilateral trade agreement with Great Britain at the expense of 
a trade agreement with the European Union. And I would hope 
that you would counsel against it.
    Thank you, Mr. Chairman.
    Senator Risch. Thank you, Senator.
    Mr. Mitchell, thank you, again, for your willingness to 
serve. And thank you to your family for the sacrifice I know 
that they are going to undertake with this.
    With that, we are going to close the hearing.
    I would state for the record that the record will be open 
until Thursday, to close of business on Thursday. That will 
include questions for the record.
    Senator Risch. With that, again, thank you, Mr. Mitchell.
    The meeting is adjourned.
    [Whereupon, at 12:23 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
     to Governor Jon M. Huntsman, Jr. by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have a strong commitment to promoting human rights and 
democracy, which reflect long-standing American values, and values I 
have worked and lived by my whole life.
    As Governor of Utah, I have worked tirelessly on the behalf of all 
the state's residents to ensure their protections and rights. As 
Ambassador to Singapore and to China, I met with individuals from all 
walks of life, particularly those from the human rights community, to 
exchange views and to share America's values. Additionally, I have 
chaired the Atlantic Council, which has been a leading NGO/think tank 
noted for its active and innovative promotion of democracy and 
democratic values.
    As I noted in my testimony, my visit with a young woman whose home 
had been torn down by the Chinese authorities, and who was beaten when 
she advocated on her own behalf, is but one example of how important I 
believe it is for the United States to shine a light on human rights 
issues. This experience has stayed with me and is a daily reminder of 
the values that the American people hold dear.
    I believe that the Russian people, like people everywhere, deserve 
a government that supports an open marketplace of ideas, provides 
transparent and accountable governance, guarantees equal treatment 
under the law, and secures for all citizens the ability to exercise 
their rights without fear of persecution or retribution.
    If confirmed, I will lead the United States mission to Russia in 
continuing to support our longstanding efforts to ensure the rights of 
all Russians are protected, and promote values of freedom, democracy, 
individual liberty, and human dignity.

    Question 2. What are the most pressing human rights concerns in 
Russia today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Russia? What do you 
hope to accomplish through these actions?

    Answer. If confirmed, I will work with allies and partners to 
continue to call on the U.S. Government of Russia to uphold its 
international obligations and commitments to promote and protect human 
rights and fundamental freedoms. Despite its promises, the U.S. 
Government has failed to take adequate steps to prosecute or punish the 
majority of officials who commit human rights abuses, resulting in a 
climate of impunity, especially for those who attack journalists, 
activists, and members of the political opposition.
    Currently, the most acute human rights situation in Russia is in 
Chechnya, where under republic head Ramzan Kadyrov, torture, 
extrajudicial killings, and enforced disappearances have been the norm 
for many years. Media have reported that on January 26, 2017, Chechen 
authorities summarily executed several dozen men without charging them 
of any crime. Since March 2017, local Chechen authorities have been 
involved in an ``anti-gay purge.'' According to credible NGO and media 
reports, at least 100 men suspected of being gay have been detained and 
tortured. Several of those detained were reportedly killed, sparking 
widespread international outrage.
    In addition, the U.S. Government has passed repressive laws and 
selectively employed existing ones to harass, discredit, prosecute, 
imprison, detain, fine, and suppress individuals and organizations 
critical of the government. Authorities stymie the work of NGOs through 
the ``foreign agents'' and ``undesirable foreign organization'' laws. 
Authorities use the new ``Yarovaya'' anti-terrorism law to harass, 
prohibit the activities, and even prosecute members of civil society, 
independent media, the political opposition, and religious and ethnic 
minorities. These laws are also used to restrict ``missionary 
activity,'' including preaching, proselytizing, disseminating religious 
materials, or engaging in inter-faith discussion; authorities regularly 
use it to harass religious minorities. As an example, the government 
used these laws to ban Jehovah's Witnesses this year. Authorities wield 
the law prohibiting ``propaganda'' of nontraditional sexual relations 
to minors to harass the LGBTI community.
    Russian authorities restricted citizens' ability to choose their 
government through free and fair elections and increasingly instituted 
a range of measures to suppress dissent. State Duma elections during 
2016 and the presidential election in 2012, in particular, were marked 
by accusations of government interference and manipulation of the 
electoral process.
    Authorities conduct politically motivated arrests, detentions, and 
trials of those who dissent from government policies or perspectives. 
Dozens of Ukrainian citizens have also been targeted for baseless 
prosecution.
    Other grave problems reported in the press include allegations of 
torture and excessive force by law enforcement officials that sometimes 
led to deaths; prison overcrowding, substandard/life-threatening prison 
conditions; executive branch pressure on the judiciary; lack of due 
process in politically motivated cases; electoral irregularities; 
extensive official corruption; violence against women; limits on 
women's rights; trafficking in persons; discrimination against persons 
with disabilities; social stigma against persons with HIV/AIDS; and 
limitations on workers' rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Russia in advancing 
human rights, civil society and democracy in general?

    Answer. Since Putin's return to the presidency in 2012, he has 
initiated a crackdown on dissenting voices that many have characterized 
as a return to Soviet-era repressive practices. His government has 
gutted independent institutions, turned the parliament into a rubber 
stamp, eliminated judicial independence, and taken control of all 
television media. The government has subjected hundreds of dissenters 
to politically-motivated prosecution, launched a crackdown on 
independent civil society through laws that label NGOs ``undesirable 
foreign organizations'' and ``foreign agents,'' prevented the political 
opposition from appearing on the ballot, and targeted unpopular 
minorities for harassment and discrimination. Recent new laws and 
prosecutions designed to clamp down on internet freedom threaten the 
one remaining bastion of free speech.
    Authorities routinely deprive LGBTI individuals and their 
supporters of free assembly rights. A 2013 law prohibiting so-called 
propaganda of homosexuality to minors has provided grounds to deny 
LGBTI activists and their supporters the right of assembly and has been 
used on multiple occasions to interrupt public demonstrations by LGBTI 
activists. Hate crimes against LGBTI persons are common and rarely 
investigated. State-controlled propaganda is openly homophobic, 
contributing to heightened societal stigma and discrimination.
    Authorities have used extremism charges to suppress many forms of 
dissent and difference, including to revoke the legal status of some 
minority religious organizations and individuals. The ``Yarovaya'' 
amendments to antiterrorism legislation further undermined freedoms of 
religion, expression, and assembly by banning the sharing of religion 
outside of officially sanctioned religious buildings, banning in 
practice prayer in private homes, private conversations between co-
religionists, dissemination of religious materials, preaching, and 
inter-faith discussion.
    Nevertheless, if confirmed, I promise to work with allies and 
partners to continue to call on the U.S. Government, in both public 
statements and private discussions, to uphold its international 
obligations and OSCE commitments to promote and protect human rights 
and fundamental freedoms.

    Question 4. Are you committed to meeting regularly with human 
rights activists, civil society and other non-governmental 
organizations in Russia?

    Answer. If confirmed, I intend to meet regularly with a broad 
spectrum of Russian society, including human rights activists, civil 
society, and religious minorities.

    Question 5. Will you and your embassy team actively engage with the 
U.S. Government to address cases of notable political prisoners or 
persons otherwise unjustly detained in Russia?

    Answer. If confirmed, I will urge Russian authorities to take steps 
to ensure the release of victims of politically-motivated prosecution, 
conduct independent and credible investigations into reported human 
rights violations, and hold any perpetrators responsible.
    I will lead Mission Russia in continuing to support longstanding 
efforts to ensure the rights of all Russians are protected, and to 
promote values of freedom, democracy, individual liberty, and human 
dignity.

    Question 6. Will you engage with the U.S. Government on matters of 
human rights, civil rights and accountable governance as part of your 
bilateral mission?

    Answer. Although the bilateral relationship has been strained by 
other issues, I believe it is important to continue to express our 
concerns about our longstanding American values of freedom, democracy, 
individual liberty, and human dignity. As Secretary Tillerson has said, 
``promoting human rights and democratic governance is a core element of 
U.S. foreign policy.'' The Russian people deserve a government which 
supports an open marketplace of ideas, transparent and accountable 
governance, equal treatment under the law, and the ability to exercise 
their rights without fear of retribution.
    I agree it is important to raise issues of civil society and human 
rights with the Russian authorities at all levels on a regular basis. 
If confirmed, I will lead Mission Russia in continuing to call on the 
U.S. Government, in both public statements and private discussions, to 
uphold its international obligations and commitments to promote and 
protect human rights and fundamental freedoms.

    Question 7. What will you do to build people-to-people ties between 
Americans and Russians and to support Russian civil society, human 
rights activists, and independent media? What do you need from 
Washington-based U.S. officials on this?

    Answer. If confirmed, I will support throughout the country public 
diplomacy and other programs which allow for exchanges of ideas through 
press briefings, dialogue with reporters, social media, and face to 
face interaction with the Russian people. Mission Russia runs a wide-
ranging public diplomacy operation, including exchange programs, under 
difficult circumstances
    Despite less than optimal circumstances, Russians still seek 
professional and academic exchanges with U.S. counterparts. English-
language and speakers programs, which provide an entree into 
communities outside of Moscow, continue to be popular. Embassy Moscow's 
American Center continues to attract a significant audience for its 
events despite its having to be relocated onto the Embassy compound.
    Although the space for civil society and free media in Russia has 
become increasingly restricted, Russian organizations and individuals 
continue to express a desire to engage with the United States. As long 
as this continues to be the case, we will continue to support 
opportunities for direct interactions between Russians and Americans, 
including through peer-to-peer, educational, cultural, and other 
regional programs that provide exchanges of best practices and ideas on 
themes of mutual interest.

    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will aim to foster a diverse and inclusive 
team. I will ensure the U.S. Mission in the Russian Federation 
continually strives to promote equal opportunity for our officers, 
including women and those from historically disadvantaged groups.

    Question 9. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that's diverse 
and inclusive?

    Answer. If confirmed, U.S. Mission Russia under my leadership will 
reflect our whole-of-mission commitment to promoting diversity and 
inclusion. I will make certain each of the supervisors at the U.S. 
Mission has the opportunity to receive proper formal training and 
regular guidance to ensure that he or she is helping to foster a work 
environment that is diverse and inclusive.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the Russian Federation?

    Answer. Neither I, nor any member of my immediate family (spouse, 
children or their families), has any financial interests in the Russian 
Federation.

    Question 13. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. I know of no significant change in my financial affairs 
since I filed my report.

    Question 14. The decline in the U.S.-Russia relationship could 
generate pressure on you to smooth over bilateral relations wherever 
possible. But the reasons for this decline lie squarely with the 
Kremlin, because of its aggression in Ukraine, Syria, and against the 
United States and our allies. What will be your diplomatic posture in 
Russia, given these factors? How will you approach the implementation 
of Russia sanctions, including the Magnitsky Act?

    Answer. The United States is open to pragmatic cooperation with 
Russia in areas that benefit the American people. At the same time, we 
will hold Russia accountable for meeting its international obligations 
and commitments and will deter Russia from actions that would undermine 
international security.
    I am committed to upholding the rights of individuals in Russia and 
elsewhere, and if confirmed, I will support and uphold laws enacted by 
Congress such as the Sergei Magnitsky Rule of Law Accountability Act to 
hold human rights abusers in Russia accountable. I am committed 
contributing to the implementation of all Russia sanctions, including 
the Countering American Adversaries Through Sanctions Act, which 
Congress recently passed. These sanctions have been carefully 
coordinated with our allies, and I will maintain this collaborative 
approach. The goal of the sanctions, however, remains the same: to 
impose costs on Russia, sufficient to change the U.S. Government's 
behavior.
Chechnya/LGBTQ Rights
    Question 15. Global attention was focused this year on Chechnya, 
where hundreds of gay and bisexual men were rounded up and detained. 
Many were tortured and some were killed, either as a result of torture 
or in so-called honor killings. Reports indicate that new detentions 
continue to happen and that the Chechen authorities are using new 
tactics to try to keep these cases out of the public eye. What would 
you do to address this situation, and the broader human rights crisis 
in Chechnya?

    Answer. I also share your concern about the violence against the 
LGBTQ community in Chechnya that was brought to light by brave 
journalists at Novaya Gazeta and researchers at Human Rights Watch. 
There have been multiple reports of mass illegal detentions, systematic 
torture of hundreds of LGBTQ persons, and extrajudicial killings.
    Through public statements and a letter from Secretary Tillerson to 
Foreign Minister Lavrov, the State Department has requested from the 
U.S. Government a full investigation of the reports of abuse against 
LGBTQ persons in Chechnya and accountability for those found to be 
responsible.
    If confirmed, I will support the use of various fora and mechanisms 
to shed light on the situation for LGBTQ persons in Russia, and will 
stand in solidarity with civil society organizations and journalists 
working to respond to the crisis.

    Question 16. The anti-LGBT violence in Chechnya takes place against 
a backdrop of homophobic laws and homophobic violence throughout 
Russia. How do you plan to raise the human rights concerns of Russia's 
LGBTQ community with U.S. Government counterparts?

    Answer. I believe the Department of State's mission is at all times 
guided by longstanding American values of freedom, democracy, 
individual liberty, and human dignity. I also believe the Russian 
people, like people everywhere, deserve a government that supports an 
open marketplace of ideas, transparent and accountable governance, 
equal treatment under the law, and the ability to exercise their rights 
without fear of retribution. I am concerned the space for civil society 
and free expression in Russia has become increasingly restricted, in 
particular for LGBTQ individuals.
    I am also committed to upholding the rights of individuals, 
including LGBTQ persons, in Russia and elsewhere and will support and 
uphold laws enacted by Congress such as the Sergei Magnitsky Rule of 
Law Accountability Act to hold human rights abusers in Russia 
accountable.
    If confirmed, I will work with Allies and partners to continue to 
call on the Government of Russia, in both public statements and private 
discussions, to uphold its international obligations and OSCE 
commitments to promote and protect human rights and fundamental 
freedoms.

    Question 17. Countering U.S. Government aggression will be more 
effective when it is done in a coordinated fashion with our allies. How 
will you coordinate closely with European counterparts and other 
partners in Moscow to deter the Kremlin's aggressive foreign policy and 
support human rights and democratic values?

    Answer. Russia is engaged in a campaign to undermine core 
institutions of the West and to weaken faith in the democratic and 
free-market systems. This campaign is aggressive, coordinated, and 
involves the entire U.S. Government. The United States should continue 
to work closely with its Allies and partners to enhance collective 
resilience against these threats. Given the nature and breadth of 
Russia's campaign, it is important for the United States to pursue a 
whole-of-government approach and work closely with Allies to expose and 
counter these campaigns.
    At the Warsaw Summit, NATO Heads of State and Government committed, 
in keeping with the intent of Article 3 of the North Atlantic Treaty, 
to enhancing individual and collective resilience against a full 
spectrum of threats, including cyber-attacks and hybrid threats, from 
any direction.
    In Europe, the United States is seeking to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies. The effects of Russian pressure continue to be 
greatest in the neighboring states of Ukraine and Georgia, where Russia 
undermines the sovereignty and territorial integrity of those 
countries. The Western Balkans are also increasingly a target, as 
Russia is trying to block the Euro-Atlantic integration of the region. 
It is important our assistance deter Russian aggression against these 
countries as well as encourage reforms in them to eliminate fraud and 
abuse and reorient their economies away from Russian economic pressure.
    If confirmed, I will promote cooperation with our Allies to build 
resilience in all NATO countries and in others around the world as 
well. I will push for the continuation of programs that promote the 
protection of human rights, build and reinforce the rule of law, 
support democratic institutions, and promote economic development in 
vulnerable countries in Europe. Furthermore, I will work closely with 
our Allies on implementation of the Countering America's Adversaries 
Through Sanctions Act to maintain unity on implementation of sanctions 
in order to further exert economic pressure on Russia to modify their 
aggressive behavior.

    Question 18. What steps will you take to ensure the safety of 
embassy personnel who conduct their work under frequent harassment by 
the U.S. Government?

    Answer. As I said in my testimony, the safety of Mission Russia and 
its personnel will always be at the top of my priority list. If 
confirmed, I will work tirelessly to ensure the protection, safety, and 
wellbeing of our staff in Russia.
    The pattern of harassment conducted against our staff in Russia is 
unacceptable, and I will not hesitate to raise concerns directly with 
senior Russian officials and stress that the United States will not 
tolerate actions that put American citizen security or the United 
States' national security at risk.

    Question 19. If confirmed, what are your thoughts on how to best 
deal with Moscow on North Korea? Are there any lessons from your time 
in Beijing that you think might be useful?

    Answer. The international community is united in condemning North 
Korea's continued violations of its international obligations and 
commitments and demanding that North Korea give up its prohibited 
nuclear and ballistic missile programs. The administration's goal is to 
seek Russian agreement to increase pressure on North Korea through the 
full implementation of DPRK related UN sanctions, employing all 
economic and diplomatic levers available in order to press the Kim 
Jong-Un regime to change its course. Russia has repeatedly called for 
restraint and dialogue with North Korea, but has resisted strengthening 
sanctions against the Kim Jong-Un regime.
    The Russian Government, however, must be made to realize that North 
Korea shows no interest in multilateral discussions to halt or reduce 
their nuclear and ballistic missile programs. Furthermore, the regime 
rejected the Russian and Chinese dialogue proposal known as ``freeze-
for-freeze,'' where the U.S. would suspend U.S.-ROK joint exercises in 
exchange for a suspension of DPRK missile and nuclear testing.
    This administration remains steadfast in working with our allies to 
sanction individuals and entities, including those in Russia, who 
violate standing United Nations or United States sanctions by 
participating in proscribed activities with North Korea. We continue to 
press Russia to recognize that any existing economic relationship with 
the DPRK enables Kim Jong-Un's nuclear weapons and ballistic missile 
program in defiance of international law. This administration will 
continue to increase pressure on North Korea, including by pressing the 
Russians to reduce their economic relationship with North Korea, until 
Kim Jong-Un halts his destabilizing weapons programs and returns to 
international dialogue.
    From my time as Ambassador to China, I understand the pivotal role 
of China in any effort to halt North Korea's prohibited nuclear and 
ballistic missile programs. Both Russia and China have publically 
committed to the peaceful denuclearization of the Korean Peninsula. 
China, Russia, and the United States participated in the six-party 
format; this example proves the three nations are capable of working 
from a common playbook to get things done.



                               __________


      Responses to Additional Questions for the Record Submitted 
       to Governor Jon M. Huntsman, Jr. bySenator Robert Menendez

    Question 1. This month, the Russian Government poured tens of 
thousands of troops into its Zapad military exercises. What do you 
think the significance of these exercises with these kinds of troop 
levels means for American security posture in Europe?

    Answer. The ZAPAD 2017 exercise has raised regional tensions within 
Europe. Russia's disregard for the territorial integrity of its 
neighbors has caused significant concern among NATO Allies and partners 
about potential threats to their security.
    Russia has the right to exercise its forces; the United States and 
its NATO Allies conduct military exercises as well. However, we adhere 
scrupulously to all of our commitments with regard to military 
transparency under the OSCE's Vienna Document and have been careful to 
meet all relevant arms control obligations. Russia's lack of 
transparency regarding some of its large military activities has 
heightened tension and increased the risk of misunderstanding or 
miscalculation. Russia's neighbors are particularly concerned about 
Russia's so-called ``snap'' military exercises where Russia fails to 
inform its neighbors in advance.
    It is important the U.S. and our NATO Allies continually review our 
military posture and military activities and exercises in Europe. If 
confirmed, I am committed to working with State Department Leadership, 
other agencies, and our Allies to ensure our posture is capable of 
meeting the full range of threats that we face.
    In the face of continued Russian aggression in Ukraine and 
provocative behavior elsewhere, we are taking prudent, concrete 
measures to support the security of NATO Allies and partners. The U.S. 
and NATO posture in the region is defensive, proportionate, and in line 
with international commitments. NATO's unity is critical to an 
effective deterrent.

    Question 2. How much of a military threat does Russia pose to our 
European neighbors?

    Answer. Russia has demonstrated a willingness to use military force 
against its neighbors, most recently in Ukraine, and to employ active 
measures of various forms including hybrid warfare, disinformation 
campaigns, and malign influence activities. The United States should 
continue to work closely with its allies and partners to enhance 
collective resilience against these threats. It is important for the 
United States to pursue a whole-of-government approach to address this 
problem set.
    In Europe, the United States is seeking to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies. The effects of Russian pressure continue to be 
greatest in the frontline states of Ukraine and Georgia, where Russia 
undermines the sovereignty and territorial integrity of these 
neighbors. In response to Russian aggression in Ukraine, the 
Departments of State and Defense have committed over $750 million in 
training and equipment to help Ukraine defend its sovereignty and 
territorial integrity. The Balkans are also increasingly a target of 
Russian malign influence. It is important that our assistance seek to 
deter Russian aggression as well as encourage reforms in these 
countries that eliminate fraud and abuse and reorient their economies 
away from Russian economic pressure.

    Question 3. What are the administration's plans to continue to 
reassure our European allies that the United States remains committed 
to transatlantic security?

    Answer. NATO's unity and U.S. leadership are both critical to an 
effective deterrent against aggression. In the face of continued 
Russian aggression in Ukraine and provocative behavior elsewhere, we 
are taking prudent, concrete measures to support the security of NATO 
Allies. The U.S. and NATO posture in the region is defensive, 
proportionate, and in line with international commitments. It 
represents a significant commitment by Allies and is a tangible 
reminder that an attack on one is an attack on all.
    It's important that the U.S and our NATO Allies continually review 
our military posture and military activities and exercises in Europe. 
I'm committed to working with Allies to ensure our posture is capable 
of meeting the full range of threats we face today.
    One of the steps the administration has taken to bolster our 
military presence in Europe is the European Defense Initiative (EDI), 
which includes $4.8 billion requested for FY 2018. EDI provides funding 
to increase U.S. presence across Europe, expand U.S. participation in 
exercises and training activities with NATO Allies and partners, 
enhance prepositioning of U.S. military equipment in Europe, improve 
infrastructure at military installations, and provide assistance to 
build the capacity of our allies and partners to defend themselves and 
enable their full participation as operational partners in responding 
to crises.
    As part of Operation Atlantic Resolve (OAR)--the United States' 
contribution to the Alliance's persistent, rotational air, land, and 
sea presence in NATO's East--the U.S. has also deployed a rotational 
armored brigade combat team (ABCT) to European soil to concretely 
demonstrate action to back up our commitments.
    If confirmed, I will continue to reaffirm the unshakeable U.S. 
commitment to Article 5 of the NATO Treaty, while calling upon all 
Allies to fulfill their commitments on defense spending and 
capabilities so that we can together meet all future threats 
effectively.

    Question 4. The Russian military continues its illegal occupation 
of Ukraine and continues to violate the Minsk agreement and take 
further destabilizing steps including recognizing passports issued by 
Ukrainian separatists. What steps will you take to pressure Russia to 
comply with the terms of the agreement?

    Answer. By maintaining Trans-Atlantic unity on sanctions, 
transforming Ukraine's military into a capable fighting force, and 
backing Ukraine's reform agenda, we have made clear to Moscow that the 
invasion of eastern Ukraine is an increasingly losing proposition. We 
must keep up the pressure, and if confirmed, I will make it one of my 
highest priorities.
    As Secretary Tillerson has said, U.S. sanctions will stay in place 
until Russia fulfills its Minsk commitments. The separate Crimea-
related sanctions will remain until Moscow returns the peninsula to 
Ukraine. I believe the existing sanctions regimes, in coordination with 
G7 and EU sanctions, provide us with leverage to compel Moscow to 
fulfill its commitments. The administration has also been clear with 
Russia that its aggression in Ukraine is the key obstacle to the 
improvement of our bilateral relationship.
    In response to Russian aggression, the United States has committed 
more than $750 million in security assistance to provide training and 
equipment to help Ukraine defend its sovereignty and territorial 
integrity, better monitor and secure its borders, and deploy its forces 
more safely and effectively. The Department is closely examining how to 
best use security assistance funding going forward to bolster Ukraine's 
ability to defend its sovereignty and territorial integrity.
    In addition to support for Ukraine's territorial integrity, the 
United States is implementing a robust assistance program to build 
democratic institutions, promote economic development, combat 
corruption, and strengthen Euro-Atlantic integration. The more Ukraine 
builds its economy and strengthens its democratic institutions, the 
more Russia fails in its effort to destabilize the country by 
continuing the conflict in the Donbas.

    Question 5. How will you engage with Russia and Ukraine to push 
back further efforts by Russia to increase its occupation and influence 
of Ukraine?

    Answer. Secretary Tillerson reenergized our engagement to end 
Russia's aggression in eastern Ukraine by appointing Kurt Volker as 
Special Representative for Ukraine Negotiations--the U.S. Government's 
point person on Ukraine negotiations. Volker has clearly delineated our 
key goals: the restoration of Ukraine's territorial integrity and the 
safety and security of all Ukrainians, regardless of language, 
nationality, religion, or ethnicity. Since his appointment in early 
July, Volker has closely coordinated with the Normandy Quartet 
(including France, Germany, Russia, and Ukraine) and has engaged with 
other allies and stakeholders in an effort to break the logjam in the 
Minsk process. I have every confidence in Special Representative 
Volker's ability to succeed and, if confirmed, I will ensure the Bureau 
fully supports his efforts.
    The United States has been clear with Russia that its aggression in 
Ukraine is the key obstacle to improving our bilateral relationship. 
Russian aggression is not limited to eastern Ukraine. If confirmed, I 
will work to counter Russian aggression more broadly, including in 
Crimea, and elsewhere in Europe.

    Question 6. Congress recently authorized lethal assistance to 
Ukraine, do you support that effort? What steps do you believe we 
should take to more effectively support Ukraine as it battles Russian 
hybrid warfare?

    Answer. The United States has neither provided defensive weapons 
nor ruled out the option of doing so, but the administration will 
continue to examine how best to use U.S. security assistance going 
forward to bolster Ukraine's ability to defend its sovereignty and 
territorial integrity. As Secretary Tillerson stated previously, 
Ukraine has a right to defend itself against Russian aggression. The 
United States continues to focus on finding a diplomatic solution to 
the crisis in eastern Ukraine through the full implementation of the 
Minsk agreements.
    Russian aggression in Ukraine includes the use of hybrid warfare to 
include disinformation and malign influence. Ukraine was the target of 
cyber-attacks in December 2015 and 2016, and in June 2017. On September 
29, an interagency team will visit Kyiv for meetings with Ukrainian 
officials to discuss policy and incident response to cyber-attacks. 
Countering hybrid warfare requires a broad whole of government approach 
in order to build national resiliency.
    In response to Russian aggression, the United States has committed 
more than $750 million in security assistance to provide training and 
equipment to help Ukraine better monitor and secure its borders while 
deploying its forces more safely and effectively. The United States and 
allies established a Multinational Joint Commission and training group 
to coordinate international efforts and build Ukraine's defense 
capacity to deter further Russian aggression. Sanctions, too, remain a 
valuable tool in this effort. As Secretary Tillerson told his Russian 
counterpart directly, Minsk-related sanctions will remain in place 
until Russia fully implements its commitments, and separate Crimea-
related sanctions will remain in place until Russia returns the 
peninsula to Ukraine.
    More broadly, the United States, along with our European Allies and 
partners, has assisted and encouraged Ukraine to pursue broad reforms 
that will reduce vulnerabilities, strengthen democratic institutions, 
and reduce corruption. Reform across sectors such as energy, the 
economy, land, pension, education, healthcare, defense, and most 
importantly judicial, will help to build a stronger and more resilient 
Ukraine. Continuing Kyiv's democratic and economic transformation, 
coupled with more capable Ukrainian Armed Forces, contributes directly 
to Ukraine's resilience in the face of continued Russian aggression, 
and in particular, Moscow's hybrid warfare tactics.

    Question 7. While we must focus on Russia's ongoing military 
aggression, as you stated in your hearing, Russia is increasingly 
engaged in hybrid warfare including effective strategic communications. 
Do you believe the United States should maintain investments into 
public diplomacy efforts in Eastern Europe?

    Answer. Yes. Public diplomacy efforts that invest in people through 
exchanges, media literacy programs, and English-language trainings are 
indispensable as the United States seeks to advance its national 
interests in the face of a rising tide of Russian disinformation. 
Initiatives such as the International Visitor Leadership Program 
(IVLP), the Fulbright Program, and other people-to-people exchanges 
build enduring relationships that cannot be perfectly measured but rank 
among our most effective investments. This is particularly true in 
countries such as Ukraine and Moldova, where Russian disinformation 
threatens to turn citizens away from the Euro-Atlantic community. Many 
U.S. exchange program alumni become leaders in their home countries; by 
investing in a country's most promising youth through short exchanges, 
we invest in a shared vision for the future. Media-focused exchanges, 
such as Ukraine's Media Partnership Program that pairs independent 
Ukrainian media outlets with U.S. media outlets in a long-term 
mentorship relationship, are equally impactful and result in better 
quality information for the Ukrainian public. Empowering the public 
with facts advances the U.S. goal of a democratic, prosperous, and 
secure Ukraine.
    To inoculate foreign publics against disinformation, our embassies 
work with European partners to build media literacy skills in audiences 
vulnerable to disinformation and fake news. By training citizens to 
more carefully scrutinize news items for simple markers such as source, 
author, and byline, we can empower countless people to protect 
themselves against disinformation and mitigate the firehose of 
falsehood, particularly in critical regions such as eastern Ukraine. 
This moves the needle forward on the U.S. strategic goal of a Europe 
whole, free, and at peace. If confirmed, I will ensure this work 
continues.
    English-language programs enable foreign publics to consume 
alternate news and obtain a more balanced perspective of the world. 
Ukrainian President Poroshenko announced 2016 as the Year of English 
and promoted English learning as a way to make Ukraine's workforce more 
competitive as Ukraine pursues its chosen European trajectory. U.S. 
public diplomacy programs are essential to fulfilling this goal. 
English-language programs not only provide skills that help Eastern 
Europeans pursue a Euro-Atlantic path but also build lasting people-to-
people relationships in even the most challenging context.

    Question 8. What programs do you believe are most effective to 
countering Russian propaganda?

    Answer. Russia rejects the post-Cold War order in Europe and 
increasingly seeks to undermine U.S. influence with our Allies and 
partners with an eye to fragmenting the transatlantic alliance. 
Russia's campaigns use traditional diplomatic, military, and economic 
tools, as well as ``active measures,'' a major component of which is 
propaganda and misinformation. The State Department's public outreach 
strategy is based on the recognition that both the message and the 
messenger are important for effective communication with audiences. 
When making public statements as the United States Government, the 
number one goal should be to empower our embassies with materials the 
local press across the region can carry, both in print and in digital 
form. This applies both to debunking myths, but more importantly, 
priming the information environment with positive messages about the 
United States and the transatlantic alliance. However, the fight 
against misinformation is bigger than us, and the U.S. Government 
cannot be as effective if it fights alone. Those most vulnerable to 
malign information campaigns could become our strongest messaging 
allies through systematic support. If confirmed, I will continue to 
work with our partners who are on the frontlines of the war of 
misinformation and arm them with the core competencies necessary to not 
only counter disinformation but advance positive, accurate, and 
responsible messaging. Specifically, I will aim to help governments 
communicate more effectively through the European Digital Diplomacy 
Exchange, empower journalists and other non-governmental communicators 
to uncover and publicize important stories through the Digital 
Communicators Network, and strengthen civil society through trainings 
and networking opportunities through a number of regional programs.

    Question 9. Do you believe the Global Engagement Center can play an 
important and constructive role in promoting American national security 
interests?

    Answer. Yes. Both extremist messaging and state-sponsored 
disinformation operations represent a critical national security threat 
to the United States. The Global Engagement Center (GEC) was mandated 
in the 2017 National Defense Authorization Act to lead and coordinate 
Federal Government efforts to recognize, understand, expose, and 
counter foreign state and non-state propaganda and disinformation that 
undermine U.S. national security interests. The GEC's role in this 
effort is essential to the effective coordination of the multitude of 
U.S. Government efforts to counter these national security threats.
    The GEC has a proven track record of playing an important and 
constructive role in promoting American national security interests 
with the work it continues to perform with regard to its original 
counterterrorism mission. The GEC has been pivotal in U.S. effort to 
counter the recruitment of terrorist groups such as ISIS and exposing 
and countering their warped and perverse ideology, and the GEC will 
continue to advance this effort.
    I hope that the GEC will employ the learned skills and successful 
aspects of its counterterrorism mission towards its expanded mission to 
counter propaganda and disinformation emanating from foreign states. 
Congress expanded the GEC's mission and granted it new legal 
authorities out of growing concern about the adverse effects of state-
sponsored propaganda and disinformation, which have emerged as a clear 
national security concern that is increasing in overall size and 
sophistication. State-sponsored disinformation operations impact United 
States foreign policy objectives and create a lack of confidence in 
foreign populations and sow seeds of doubt in the susceptible 
populations living in our allied and partner nations.
    As stated in the Director of National Intelligence's January 2017 
report, countries and entities involved in spreading disinformation 
during election campaigns in Western democracies will apply what they 
have learned ``to future influence efforts worldwide, including against 
US allies and their election processes.''

    Question 10. Most analysts and USG officials believe that Russia 
violated the INF treaty this year. Do you share this assessment? How 
should the United States respond?

    Answer. Yes, I share the assessment that Russia remains in 
violation of the Intermediate-Range Nuclear Forces (INF) Treaty, as it 
has been for several years. In July 2014, the United States declared 
Russia in violation of its obligations under the INF Treaty not to 
possess, produce, or flight test a ground-launched cruise missile 
(GLCM) with a range between 500 and 5,500 kilometers. This finding was 
made public in the 2014 Report on Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments, 
and reaffirmed in the 2015 and 2016 editions.
    The administration has made very clear to Russia its concerns about 
Russia's violation of the INF Treaty and the risks it poses to European 
and Asian security. I believe the INF Treaty is in the national 
security interest of the United States and of Russia--but only if 
Russia returns to full compliance with its treaty obligations. If 
confirmed, I will certainly take every opportunity to raise this in 
Moscow, as this is a significant issue in the bilateral relationship.
    The administration is taking additional steps to pressure Russia to 
return to compliance and ensure Russia will not gain a significant 
military advantage from its decision to violate the Treaty. If 
confirmed, I will work closely with our Allies as we develop 
proportionate responses to Russia's ongoing violation and make very 
clear to Russian officials U.S. concerns about Russia's violation of 
the INF Treaty and the risks it poses to European and Asian security.

    Question 11. We have seen Russia build an increasingly cooperative 
relationship with Iran, particularly vis-a-vis Syria, but also 
Afghanistan and elsewhere. How should the United States respond?

    Answer. Recent Russian actions in Syria and ongoing cooperation 
with Iran across a range of issues are concerning. The region is 
complex, and U.S. efforts to defeat ISIS must factor in our interest in 
ending the conflict in Syria and containing Iran's influence.
    If confirmed, I will remain clear-eyed about Russia's actions in 
Syria and its relationship with Iran, and I will be frank in our 
dialogue with Russia. I will be resolute in calling out Russia's bad 
behavior as it arises, and will consider our full range of sanctions, 
as well as military, diplomatic, and law-enforcement tools to protect 
U.S. interests.
    If confirmed, I will urge Russia to fully support the Afghan 
Government through coordinated international efforts aimed at ensuring 
an Afghanistan that is stable, prosperous, and not a threat to the 
United States and others. To date, cooperation between the United 
States and Russia on Afghanistan has been limited. The United States 
has offered bilateral consultations with Russia to discuss how we might 
cooperate to support Afghanistan and to foster a peace process between 
the Afghan Government and the Taliban, though it remains to be seen 
whether Russia is interested in playing a productive role in this 
process, or rather that of a spoiler.

    Question 12. We have seen Russia build an increasingly cooperative 
relationship with Iran, particularly vis a vis Syria, but also 
Afghanistan and elsewhere. What do you assess to be Russia's long term 
interest in building a relationship with the world's leading sponsor of 
terrorism?

    Answer. Russia views Iran as a key partner in addressing common 
threats: impeding Western interests in its region of influence, 
maintaining stability in Central Asia, retaining influence in 
Afghanistan and Syria, and blocking U.S. goals in the Middle East.
    Moscow and Tehran have cooperated to bolster the Assad regime since 
the outbreak of the Syrian civil war, with Russia dramatically 
increasing its support in September 2015. Iranian-supported militias 
backed by Russian air support enabled pro-regime forces to seize and 
hold key terrain from opposition forces. In turn, Russia offered Iran 
legitimization by giving it a seat at the table in international 
discussions about the Syrian conflict. At the same time, Moscow and 
Tehran are jockeying for the role of top influencer on the Assad 
regime.
    Russian official rhetoric shows it is keen to expand its economic 
and trade relationship with Iran. However, Russia and Iran are both 
highly dependent on energy exports. While trade volumes between Russia 
and Iran grew to $2.2 billion in 2016 from $1.3 billion in 2015, Iran 
is only Russia's 42nd-largest trading partner. Virtually the entire 
increase in Russian exports to Iran from 2015-2016 came in military 
procurements and civil aviation.

    Question 13. How can the United States and its allies, particularly 
in the NATO, work to confront this alliance?

    Answer. Countering traditional military threats remains as central 
to NATO as it was when the Alliance was created in 1949. But today's 
security environment involves a broader array of challenges, including 
asymmetric warfare. Iran is developing ballistic missiles that threaten 
NATO Allies. Russian disinformation and malign influence campaigns seek 
to undermine Western democratic institutions and principles, sow 
disunity within Europe, and weaken our transatlantic bonds.
    NATO is already responding. Under the leadership of Secretary 
General Stoltenberg all Allies agreed, by the end of 2017, to outline 
concrete plans for reaching their 2 percent defense spending goal. In 
June 2017, Allies also individually agreed to take on the full set of 
military capabilities assigned to them by NATO--the first time this has 
ever occurred. The President has proposed spending $4.8 billion on the 
European Deterrence Initiative as a concrete demonstration of the U.S. 
will and capability to defend our Allies. In July 2016, Allies declared 
Initial Operational Capability of a NATO ballistic missile defense 
capability, which defends Alliance populations, territory, and forces 
against a potential ballistic missile attack from regional threats like 
Iran.
    As Allies said at the 2016 NATO Warsaw Summit, Russia's aggressive 
actions are a source of regional instability that fundamentally 
challenge the Alliance, have damaged Euro-Atlantic security, and 
threaten our long-standing goal of a Europe whole, free, and at peace. 
NATO has responded to this changed security environment by enhancing 
its deterrence and defense posture, including by placing a forward 
presence in the eastern part of the Alliance.
    On July 7, the President stated in his speech in Warsaw, a strong 
alliance of free, sovereign and independent nations is the best defense 
for our freedoms and for our interests. The United States has 
demonstrated not merely with words but with its actions that we stand 
firmly behind Article 5, the mutual defense commitment.

    Question 14. How will you work with Russia to ensure it lives up to 
international agreements to impose sanctions on state sponsors of 
terrorism and human rights abusers, particularly in Iran and North 
Korea? According to the latest TIP Report, the Russian Government 
contracts with the North Korean Government to allow North Korea to 
operate force labor camps on Russian soil.

    Answer. I am committed to holding Russia accountable for meeting 
its international obligations and commitments. If confirmed, I will 
work to deter Russia from actions that would undermine international 
security or violate human rights.
    I will support and uphold laws enacted by Congress such as the 
Sergei Magnitsky Rule of Law Accountability Act to hold human rights 
abusers in Russia accountable. I will also strive to effectively 
contribute to implementing all Russia sanctions, including the 
Countering American Adversaries Through Sanctions Act, which Congress 
recently passed. The U.S. Government has carefully coordinated with our 
allies on Russia/Ukraine sanctions since 2014, and I will work with my 
colleagues to maintain this collaborative approach as we implement our 
new sanctions. The goal of the sanctions, however, remains the same: to 
impose costs on Russia sufficient to change the Russian Government's 
behavior.
    On DPRK, the United States hopes that along with U.S. allies and 
partners around the world, Russia will press with the DPRK that the 
only path to a secure, economically-prosperous future is to abandon its 
unlawful weapons programs that endanger international peace and 
security.
    If confirmed, I will seek Russia's cooperation to ensure the full 
implementation of all UN sanctions pertaining to recent UN Security 
Council resolutions in response to DPRK provocations. Secretary 
Tillerson has discussed directly with President Putin the need for the 
Russians to join us in the pressure campaign on North Korea.
    Russia and China represent the two largest markets for North 
Koreans working abroad, a significant revenue source for the DPRK 
regime. In March this year, the DPRK and Russia concluded an agreement 
to expand the number of North Korean workers in Russia. Russia (along 
with China) has watered down all the sanctions measures the United 
States and partners have proposed. Russia needs to downgrade its DPRK 
guest worker program as their wages are siphoned off by the regime to 
fund the banned weapons programs. If confirmed, I will urge Russia to 
increase diplomatic and economic pressure on the regime.
    Addressing Iran's continued support for terrorism, and violations 
and abuses of the human rights of its citizens remains a priority for 
the United States. The United States regularly targets for financial 
and visa sanctions those who abuse or violate human rights in Iran, and 
I will make every effort to work with Russia, as we do with our like-
minded partners, to ensure it lives up to its agreements in bringing 
Iran to task for its malign and destabilizing activities.
    Entities or individuals from any nation, including Russia, that 
transfer conventional weapons or controlled items to Iran, North Korea, 
or Syria may be sanctioned under the Iran North Korea Syria 
Nonproliferation Act Sanctions Act (INKSNA). In the past two years, the 
Department sanctioned 19 Russian entities under INKSNA.

    Question 15. According to the latest TIP Report, the Russian 
Government contracts with the North Korean Government to allow North 
Korea to operate force labor camps on Russian soil. As Ambassador to 
Russia, would you consider addressing this issue? In general, how would 
you engage the Russian Government on human trafficking concerns?

    Answer. Russia remains a Tier 3 country in the 2017 Trafficking in 
Persons Report. The report cites the Russian Government's contracts 
with the Democratic People's Republic of Korea (DPRK) under which the 
DPRK operates labor camps on Russian soil and subjects thousands of 
North Korean workers to forced labor. The report also notes that Russia 
lacks a national action plan to combat trafficking and offers no 
funding for victim rehabilitation.
    The United States remains concerned over Russia's low political 
will to address human trafficking. If confirmed, I will engage Russian 
officials at all levels to encourage them to take concrete steps to 
prevent trafficking, protect the victims, and prosecute the offenders.

    Question 16. Venezuela's state-owned oil company PdVSA, (Pedevesa) 
and its subsidiary Citgo--which has energy infrastructure in the United 
States--are under extreme financial pressure. Under a deal last year, 
49.9 percent of Citgo was mortgaged to Rosneft, the Russian Government-
owned oil company run by Vladimir Putin crony Igor Sechin. It is also 
possible that Rosneft acquired other PdVSA bonds on the open market 
what could bring their ownership potential to over 50 percent. If Citgo 
defaults on its debts, Rosneft, an entity currently under American 
sanctions because of Russia's belligerent behavior, could come to own a 
majority stake in strategic US energy infrastructure including 3 
refineries and several pipelines.

   Does this potential deal concern you?

    Answer. Russian state-controlled oil company Rosneft has extended a 
number of loans to Venezuelan state-owned oil company Petroleos de 
Venezuela, S.A (PDVSA). Some of these loans are secured by PDVSA assets 
located in the United States, specifically PDVSA-owned U.S.-based 
petroleum company Citgo. At this time, PDVSA is not in default on loan 
payments to Rosneft and there are no plans to transfer Citgo ownership 
to Rosneft.

    Question 17. Do you believe the United States Committee on Foreign 
Investment (CFIUS) should be reviewing this case?

    Answer. Should a change in the foreign ownership of Citgo occur in 
the future, the transaction would be closely scrutinized by the 
Committee on Foreign Investment in the U.S. (CFIUS).

    Question 18.  Are you concerned about other efforts of the Russian 
Government to meddle in the American energy market?

    Answer. This CFIUS review process allows the U.S. Government to 
impose mitigation measures or block any ownership changes which could 
negatively impact U.S. national security.

    Question 19. Three respected international tribunals have concluded 
in unanimous decisions that Russia violated international laws and 
norms by expropriating Yukos oil company and must compensate 
shareholders. Additionally, in 2014, the European Court of Human Rights 
concluded that Russia's actions against Yukos violated Russia's 
obligations under the European Convention on Human Rights and awarded 
Yukos shareholders more than $2.5 billion in compensation. However, 
thousands of U.S. investors have lost an estimated $14 billion and have 
received no compensation.

   Will you engage with the Russian Government and advocate for the 
        U.S. investors who have yet to receive compensation?

    Answer. We are currently awaiting the outcome of two cases in front 
of U.S. Federal and Dutch courts involving the U.S. investors in Yukos. 
If I am confirmed, I will monitor these cases closely and, if 
necessary, will advocate to the Russian Government on behalf of the U.S 
investors in Yukos for compensation.

    Question 20. As you know, the situation facing lesbian, gay, 
bisexual, transgender and queer people in Russia can be extremely 
challenging. They often face violence and government crackdowns, with a 
strict "anti-propaganda" law that potentially criminalizes any 
discussion of homosexuality. And the Russian republic of Chechnya has 
lately conducted an anti-gay purge that really beggars description, 
with witch hunts, torture, and summary executions.

   Unfortunately, the Trump administration's response to these attacks 
        on this vulnerable community has been weak. Secretary Tillerson 
        and the President have not raised Chechnya publicly even once 
        and Secretary Tillerson has stated that he does not view 
        protecting human rights as a priority of his department. This 
        could have dangerous implications for security and stability in 
        the region.
   How do you plan to raise human rights concerns with your Russian 
        counterparts, and especially with regards to the LGBTQ 
        community?

    Answer. I believe the Department of State's mission is at all times 
guided by longstanding American values of freedom, democracy, 
individual liberty, and human dignity. I also believe the Russian 
people, like people everywhere, deserve a government that supports an 
open marketplace of ideas, transparent and accountable governance, 
equal treatment under the law, and the ability to exercise their rights 
without fear of retribution--and am concerned the space for civil 
society and free media in Russia has become increasingly restricted.
    I also share your concern about the violence against the LGBT 
community in Chechnya that was brought to light by brave journalists at 
Novaya Gazeta and researchers at Human Rights Watch. There have been 
multiple reports of mass illegal detentions, systematic torture of 
hundreds of LGBT persons, and extrajudicial killings.
    Through public statements and a letter from Secretary Tillerson to 
Foreign Minister Lavrov, the State Department has requested from the 
Russian Government a full investigation of the reports of abuse against 
LGBT persons in Chechnya and accountability for those found to be 
responsible.
    I am also committed to upholding the rights of individuals in 
Russia and elsewhere and will support and uphold laws enacted by 
Congress such as the Sergei Magnitsky Rule of Law Accountability Act to 
hold human rights abusers in Russia accountable.
    If confirmed, I will work with State Department colleagues, Allies, 
and partners to continue to call on the Government of Russia, in both 
public statements and private discussions, to uphold its international 
obligations and OSCE commitments to promote and protect human rights 
and fundamental freedoms.

    Question 21. I was pleased that you definitively stated in your 
hearing that there was ``no question Russia meddled in our elections.'' 
Unfortunately, President Trump has not been as clear and definitive in 
his statements and I am concerned that in our eagerness to work with 
Russia we lose sight of the importance of holding Russia accountable 
for their interference.

   As U.S. Ambassador to Russia, how will you continue to hold the 
        Russian Government accountable for their actions in interfering 
        with the U.S. election process?

    Answer. If confirmed, I will continue to press Russian officials 
against further Russian intrusion in the democratic processes of the 
United States, and those of any other countries. Furthermore, I am 
committed to contributing to the swift implementation of the Countering 
America's Adversaries Through Sanctions Act, which represents the will 
of the Congress, and American people, in responding to Russian election 
interference in the United States.



                               __________


      Responses to Additional Questions for the Record Submitted 
      to Governor Jon M. Huntsman, Jr. by Senator Edward J. Markey

    Question 1.  As you know, the situation facing lesbian, gay, 
bisexual, transgender and queer people in Russia can be extremely 
challenging. They often face violence and government crackdowns, with a 
strict ``anti-propaganda'' law that potentially criminalizes any 
discussion of homosexuality.
    Senator Toomey and I have a resolution pending before this 
committee condemning the abuses in Chechnya, calling on the Russian 
Government to protect its citizens, calling on our government to demand 
the release of individuals wrongfully detained, and also to hold 
perpetrators accountable through sanctions under the Magnitsky Act.

     How do you plan to raise human rights concerns with your Russian 
        counterparts, and especially with regards to the LGBTQ 
        community, particularly with respect to Chechnya?

    Answer. I share your concern about the violence against the LGBTI 
community in Chechnya that was brought to light by brave journalists at 
Novaya Gazeta and researchers at Human Rights Watch. There have been 
multiple reports of mass illegal detentions, systematic torture of 
hundreds of LGBTI persons, and extrajudicial killings.
    Through public statements and a letter from Secretary Tillerson to 
Foreign Minister Lavrov, the State Department has pressed the Russian 
Government to fully investigate the reports of abuse and to prosecute 
those responsible.
    If confirmed, I will work with Allies and partners press the 
Government of Russia, to uphold its international obligations and OSCE 
commitments to promote and protect human rights and fundamental 
freedoms.
    I am committed to upholding the rights of individuals in Russia and 
elsewhere and will support and uphold laws enacted by Congress such as 
the Sergei Magnitsky Rule of Law Accountability Act to hold human 
rights abusers in Russia accountable.

    Question 2.  Given Russia's increasingly aggressive behavior in 
Europe and in light of the President's lackluster public support for 
NATO, how will you communicate to Russia that the United States remains 
strongly committed to NATO and defending our European allies?

    Answer. The United States is committed under Article 5 of the North 
Atlantic Treaty to the collective defense of any and all NATO Allies. 
Collective defense under Article 5 is a bedrock principle of NATO, 
which underpins the transatlantic relationship. President Trump has 
publicly reaffirmed the U.S. commitment to Article 5, as have 
Secretaries Tillerson and Mattis.
    The United States' commitment to Article 5 is ironclad, and the 
United States backs up this commitment though a broad set of actions, 
including deterrence and reassurance. This includes leading a 
rotational multinational battle group in Poland as part of NATO's 
enhanced Forward Presence. In addition, the United States supports 
deterrence and defense activities in Europe through the European 
Reassurance Initiative (ERI). This administration's Fiscal Year 2018 
Budget request included $4.8 billion--a $1.4 billion increase from last 
year--to fund ERI.
    The ERI provides funding to increase U.S. presence across Europe, 
expand U.S. participation in exercises and training activities with 
NATO Allies and partners, enhance prepositioning of U.S. military 
equipment in Europe, improve infrastructure at military installations, 
and provide assistance to build the capacity of our allies and partners 
to defend themselves and enable their full participation as operational 
partners in responding to crises. These activities also support Article 
3 of the North Atlantic Treaty, which focuses on individual and 
collective capacity to resist armed attack.

    Question 3.  Russia is also currently out of compliance with the 
Intermediate Nuclear Forces (INF) Treaty and is developing ground-
launched cruise missiles prohibited under the Treaty.
    What can we do to bring Russia back into compliance with the INF 
Treaty? Will you commit to raising this issue with the appropriate 
contacts if appointed as Ambassador to Russia? What is your perspective 
about the trajectory that strategic arms reduction dialogue should 
take, between Russia and the United States and also China?

    Answer. The administration has made very clear to Russia its 
concerns about Russia's violation of the INF Treaty and the risks it 
poses to European and Asian security. I believe the INF Treaty is in 
the national security interest of the United States and of Russia--but 
only if Russia returns to full compliance with its treaty obligations. 
If confirmed, I will certainly take every opportunity to raise this in 
Moscow, as this is a significant issue in the bilateral relationship.
    Ultimately, it is up to the decision-makers at the highest levels 
of the Russian Government to make the political decision to return to 
compliance with its obligations under the INF Treaty. For several 
years, the U.S. has pressed russia to do so; thusfar Moscow has refused 
to substantively engage at either the political or technical expert 
level. I understand that the administration is taking additional steps 
to pressure Russia to return to compliance, and to ensure Russia will 
not gain a significant military advantage from its decision to violate 
the Treaty. If confirmed, I will work closely with State Department 
Leadership and our Allies to develop proportionate responses to 
Russia's ongoing violation, including sharing available information on 
Russia's intermediate-range ground-launched cruise missile production 
and flight-testing.
    Regarding the trajectory of the strategic arms reduction dialogue, 
the administration is focused on ensuring the United States and Russia 
reach the central limits of the New START Treaty on Feburary 5, 2018 
before assessing next steps on strategic arms control.

    Question 4.  If confirmed, what would you do to persuade Russia to 
work with the United States and China to peacefully denuclearize the 
Korean Peninsula? Did you gain any insights as Ambassador to China 
about how we might work with China and also with Russia to develop a 
coordinated, multilateral diplomatic strategy to dealing with North 
Korea?

    Answer. Both Russia and China have publicly committed to the 
peaceful denuclearization of the Korean Peninsula. The international 
community is united in condemning North Korea's continued violations of 
its international obligations and commitments and demanding that North 
Korea give up its prohibited nuclear and ballistic missile programs. 
The administration's goal is to seek Russian agreement to increase 
pressure on North Korea through the full implementation of DPRK related 
U.N. sanctions, employing all economic and diplomatic levers available 
in order to press the Kim Jong-Un regime to change course. Russia has 
repeatedly called for restraint and dialogue with North Korea, but has 
resisted strengthening sanctions against the Kim Jong-Un regime.
    The Russian Government, however, must be made to realize that North 
Korea shows no interest in multilateral discussions to halt or reduce 
their nuclear and ballistic missile programs. Furthermore, the regime 
rejected the Russian and Chinese dialogue proposal known as ``freeze-
for-freeze,'' where the U.S. would suspend U.S.-ROK joint exercises in 
exchange for a suspension of DPRK missile and nuclear testing.
    This administration remains steadfast in working with our allies to 
sanction individuals and entities, including those in Russia, who 
violate standing United Nations or United States sanctions by 
participating in proscribed activities with North Korea. We continue to 
press Russia to recognize that any existing economic relationship with 
the DPRK enables Kim Jong-Un's nuclear weapons and ballistic missile 
program in defiance of international law. This administration will 
continue to increase pressure on North Korea, including by pressing the 
Russians to reduce their economic relationship with North Korea, until 
Kim Jong-Un halts his destabilizing weapons programs and returns to 
international dialogue.
    From my time as Ambassador to China, I understand the pivotal role 
of China plays in any effort to halt North Korea's prohibited nuclear 
and ballistic missile programs. China, Russia and the United States 
participated in the six-party format; this example proves that the 
three nations are capable of working from a common playbook to get 
things done.

    Question 5.  The President's recalcitrance to accept the unified 
conclusion of the U.S. intelligence community that Russia actively 
meddled in the 2016 U.S. Presidential elections is extremely troubling. 
Even more troubling are the ongoing investigations by former FBI 
Director Mueller and the U.S. Congress into the President's ties to 
Russia, whether there was any collusion between his campaign and the 
Russia Government during the 2016 elections, and the possibility that 
he attempted to obstruct investigations into these ties.

   I was pleased by your unequivocal statement that there is no 
        question about Russia interference in our election. How will 
        you communicate to Russia that this behavior is unacceptable 
        and will not be tolerated in the future?

    Answer. The U.S. intelligence community's assessment, as reported 
in October 2016 and January 2017, made clear the Russian Government 
directed the compromise and subsequent release of emails in advance of 
the November 8, 2016 U.S. general election with the intent to influence 
the election, erode faith in U.S. democratic institutions, sow doubt 
about the integrity of our electoral process, and undermine confidence 
in the institutions of the U.S. Government. This is unacceptable; 
confidence in the integrity of our election process is the bedrock of 
our democracy. If confirmed, I will continue to press Russian officials 
against further Russian intrusion in the democratic processes of the 
United States, and those of any other countries.



                               __________


      Responses to Additional Questions for the Record Submitted 
       to Governor Jon M. Huntsman, Jr. by by Senator Cory Booker

    Question 1. I was recently in Poland, where I visited our troops in 
Powidz, which serves as an important deterrent against Russian 
aggression, and Ukraine, which is at the front line of Russia's 
destabilizing efforts.

   How do you assess Russia's actions in Eastern Europe?
   What do you believe are their aims?
   What do you think we need to do reassure our Eastern European 
        allies?

    Answer. Russia is engaged in a campaign to undermine core Western 
institutions and weaken faith in the democratic and free-market system. 
This campaign is aggressive and coordinated. Russia has consistently 
demonstrated a willingness to employ active measures of various forms 
including hybrid warfare, disinformation campaigns, and malign 
influence activities. The United States should continue to work closely 
with its allies and partners to enhance collective resilience against 
these threats. It is also important the United States pursue a whole-
of-government approach to address this problem set.
    At the Warsaw Summit, NATO Heads of State and Government committed 
to enhancing individual and collective resilience against a full 
spectrum of threats, including hybrid and cyber-attacks, from any 
direction, in keeping with the intent of Article 3 of the North 
Atlantic Treaty.
    In Europe, the United States is seeking to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies. The effects of Russian pressure continue to be 
greatest in the frontline states of Ukraine and Georgia, where Russia 
undermines the sovereignty and territorial integrity of these 
neighbors. In response to Russian aggression in Ukraine, the 
Departments of State and Defense have committed over $750 million in 
training and equipment to help Ukraine defend its sovereignty and 
territorial integrity. The Balkans are also increasingly a target of 
Russian malign influence. It is important our assistance seek to deter 
Russian aggression as well as encourage reforms in these countries that 
eliminate fraud and abuse and reorient their economies away from 
Russian economic pressure.
    The European Defense Initiative (EDI), including the $4.8 billion 
requested for FY 2018, provides funding to increase U.S. presence 
across Europe, expand U.S. participation in exercises and training 
activities with NATO Allies and partners, enhance prepositioning of 
U.S. military equipment in Europe, improve infrastructure at military 
installations, and provide assistance to build the capacity of our 
allies and partners to defend themselves and enable their full 
participation as operational partners in responding to crises.
    Further on the military side, NATO will continue to prepare for, 
deter and defend against attacks that employ chemical, biological, 
radiological, or nuclear material; to invest in robust, flexible, and 
interoperable military capabilities; and to protect our military supply 
chains and work to address, as appropriate, existing dependencies on 
Russian-sourced legacy military equipment through national efforts and 
multinational cooperation.
    If confirmed, I will continue to press these core U.S. national 
security interests at all levels within the Russian government.

    Question 2. LGBT rights have been a strong interest of mine both 
before coming to the Senate and here in the Senate. These rights have 
been under acute pressure in Russia, particularly in certain provinces 
such as Chechnya. What do you plan to do, if confirmed, to help protect 
LGBT rights in Russia?

    Answer. I believe the Department of State's mission is at all times 
guided by longstanding American values of freedom, democracy, 
individual liberty, and human dignity. I also believe the Russian 
people, like people everywhere, deserve a government that supports an 
open marketplace of ideas, transparent and accountable governance, 
equal treatment under the law, and the ability to exercise their rights 
without fear of retribution--and am concerned the space for civil 
society and free media in Russia has become increasingly restricted.
    I also share your concern about the violence against the LGBT 
community in Chechnya that was brought to light by brave journalists at 
Novaya Gazeta and researchers at Human Rights Watch. There have been 
multiple reports of mass illegal detentions, systematic torture of 
hundreds of LGBT persons, and extrajudicial killings.
    Through public statements and a letter from Secretary Tillerson to 
Foreign Minister Lavrov, the State Department has requested from the 
Russian government a full investigation of the reports of abuse against 
LGBT persons in Chechnya and accountability for those found to be 
responsible.
    I am also committed to upholding the rights of individuals in 
Russia and elsewhere and will continue to support and uphold laws 
enacted by Congress such as the Sergei Magnitsky Rule of Law 
Accountability Act to hold human rights abusers in Russia accountable.
    If confirmed, I will work with Allies and partners to continue to 
call on the Government of Russia, in both public statements and private 
discussions, to uphold its international obligations and OSCE 
commitments to promote and protect human rights and fundamental 
freedoms.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to A. Wess Mitchell by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have advanced the cause of democracy by helping to create 
the Center for European Policy Analysis (CEPA), whose mission is to 
promote an economically vibrant, geopolitically secure and politically 
free Central and Eastern Europe with close and enduring ties to the 
United States. CEPA's programs and analysis have advocated for Europe's 
new democracies to solidify the gains of the post-Communist period and 
to act beacons to the countries to their east. An important component 
of these efforts is close engagement with both senior government 
leaders and civil society. A prominent example is the work that CEPA 
has done to highlight the progress of anti-corruption efforts in 
Romania, and how this progress has strengthened Romania's role as a 
security ally in the Black Sea region. The institute has also 
encouraged partners in the Balkans and NATO's eastern neighborhood to 
remain committed to the path of reform amid mounting geopolitical 
pressure. These efforts have served to reinforce U.S. and NATO public 
diplomacy and expand people-to-people contacts on both sides of the 
Atlantic.
    In the field of human rights, CEPA has worked to engage civil 
society and call attention to the plight of dissidents in, Belarus, 
Moldova and Russia. CEPA continued to raise concerns about democracy 
and human rights in Russia even in the period of the ``Reset.'' A 
notable project was the CEPA Belarus Working Group, co-chaired with 
Freedom House, which used reports, open letters, seminars in Washington 
and at the OSCE, and trips for Belarusian opposition figures to the 
United States to raise public awareness about the plight of political 
prisoners in Belarus and to inform Congressional and Executive 
policymaking at a pivotal moment in the country's political 
development. If confirmed I will remain committed to promoting human 
rights and democracy in all of the countries of Europe and Eurasia.

    Question 2. What are the most pressing human rights concerns in 
Europe and Eurasia today?

   What are the most important steps you expect to take--if 
        confirmed--to advance human rights and democracy in Europe and 
        Eurasia?
   What do you hope to accomplish through these actions?
   If confirmed, what are the potential obstacles to addressing the 
        specific human rights issues you have identified in your 
        previous response?
   What challenges will you face in Europe and Eurasia in advancing 
        human rights, civil society and democracy in general?

    Answer. The myriad of human rights issues currently facing Europe 
and Eurasia have my full attention. These concerns are not limited to 
any country or region. They range from torture, enforced 
disappearances, and extrajudicial killings in Chechnya to abuse of the 
political opposition in Russia, attacks on Roma and anti-Semitism in 
various parts of Europe, and the persecution of Christians and other 
religious minorities in Turkey. Respect for human rights is a core 
American value. There should be no room for hate crimes against members 
of vulnerable communities such as LGBTI individuals, migrants, or 
persons with disabilities. If confirmed, I will strongly support the 
Department of State's ongoing work with our European partners to combat 
all forms of intolerance and to strengthen respect for human rights.
    America's alliances are strongest when our values and those of our 
allies are aligned. The United States has been diligent in encouraging 
its allies, especially in Central Europe, to remain firmly committed to 
the democratic principles and rule of law upon which the NATO Alliance 
was founded. If confirmed, I will speak up against restrictions on 
civil society and free expression, discrimination against minority 
groups, and steps that undermine the independence of the judiciary or 
otherwise threaten the foundations of constitutional order while 
continuing to build communication and trust with all allies.
    In addition to diplomatic engagement, I will continue to support 
U.S. foreign assistance in Europe and Eurasia that supports civil 
society and strengthening of democratic institutions. This assistance 
provides legal and financial support to human rights defenders 
persecuted for their work, supports civil society's efforts to monitor 
and investigate human rights violations and hold perpetrators 
accountable, and sustains programs that increase citizens' knowledge of 
their rights and fundamental freedoms.

    Question 3. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Europe and Eurasia?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of society among European publics, including human 
rights activists, civil society, religious groups, and the 
organizations that represent them.

    Question 4. Will you and your bureau actively engage with relevant 
governments in Europe and Eurasia to address cases of key political 
prisoners or persons otherwise unjustly detained in their states?

    Answer. If confirmed, I will engage European authorities and call 
on them to ensure the resolution of cases involving victims of 
politically-motivated prosecution in a fair and timely manner, 
respecting human rights and fundamental freedoms, including all the 
protections and fair trial guarantees necessary for their defense. I 
will urge them to conduct independent and credible investigations into 
reported human rights violations, and bring those responsible to 
justice.
    In particular, I will continue to advocate for consular access to 
all U.S. citizens and swift due process for all detained or 
incarcerated U.S. citizens in Europe.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure the Department continues to 
thoroughly vet all individuals and units nominated to participate in 
U.S.-funded security assistance activities, in accordance with the 
Leahy law. If there are findings of credible information regarding 
gross violations of human rights, we will take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible parties do not participate in U.S.-funded 
training and will assist their respective governments to bring them to 
justice.

    Question 6. Will you direct U.S. embassies in Europe and Eurasia to 
engage on matters of human rights, civil rights and governance?

    Answer. I am committed to ensuring our Embassies in Europe and 
Eurasia remain engaged on these issues. As Secretary Tillerson has 
said, American leadership requires moral clarity. We are strongest when 
our values and those of our allies are aligned, and when we hold our 
rivals accountable for human rights abuses at home. If confirmed, I 
will ensure that engagement on combatting democratic backsliding, civil 
rights, and human rights violations remain integral components of our 
mission.

    Question 7. What will you do to build people-to-people ties between 
Americans and Europeans, and to support European and Eurasian civil 
societies, human rights activists, and independent media? What do you 
need from Washington-based U.S. officials on this?

    Answer. If confirmed, I will strongly support the Bureau's broad 
range of public diplomacy, media training and literacy, civil society 
engagement and other programs that support the goals of sharing and 
amplifying American values on independent media, human rights, and 
fostering robust civil society dialogue. Continued congressional 
engagement and support of professional and academic exchange programs, 
peer-to-peer engagement, as well as educational, cultural, and other 
regional programs that provide exchanges of ideas and best practices 
will be key to the continued success of those efforts.

    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that's diverse and 
        inclusive?

    Answer. I am committed to equal employment opportunity principles. 
If confirmed, I will foster a diverse and inclusive team in the 
European and Eurasian Affairs Bureau, across all of its missions, and 
communicate this is a priority for me as the Assistant Secretary. If 
confirmed, I will urge the Bureau to reflect our whole-of-mission 
commitment to promoting diversity and inclusion. In keeping with 
Secretary Tillerson's strong emphasis on diversity, I will ensure all 
supervisors, at all of our missions, have access to and avail 
themselves of opportunities to receive regular formal training and 
regular guidance on EEO principles, diversity, and inclusion to 
sensitize them to these important issues and maximize diverse talents 
in our workforce.

    Question 9. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. My investment portfolio includes diversified mutual funds 
that may have investments in Europe and Eurasia; however, investments 
in diversified mutual funds are exempt from the conflicts of interest 
rules. I am committed to ensuring that my official actions will not 
give rise to a conflict of interest. I will divest my interests in any 
future investments the State Department Ethics Office deems necessary 
to avoid a conflict of interest, and will remain vigilant with regard 
to my ethics obligations.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the countries of Europe or Eurasia?

    Answer. Neither I, nor any member of my immediate family has any 
financial interests in Europe or Eurasia.

    Question 13. Did Russia interfere in the 2016 U.S. election?

    Answer. The U.S. intelligence community's assessment, as reported 
in October 2016 and January 2017, found that there was a Russian effort 
to influence the November 8, 2016 U.S. general election. The objective 
of these efforts was to erode faith in U.S. democratic institutions, 
sow doubt about the integrity of our electoral process, and undermine 
confidence in the institutions of the U.S. Government. The 
administration has been clear that it takes this issue seriously; 
Secretary Tillerson has raised it with Minister Lavrov and stated that 
there will not be an improvement in the bilateral relationship until it 
has been dealt with.
    Confidence in the integrity of our election process is the bedrock 
of our democracy. If confirmed, I will continue to press Russian 
officials against further intrusion in the democratic processes of the 
United States, and those of our Allies. I am committed to swift 
implementation of the Countering America's Adversaries Through 
Sanctions Act, which represents the will of the American people, in 
responding to Russian election interference in the United States.

    Question 14. Unity with Europe on Russia sanctions is critical to 
their success. What is your diplomatic plan to build support within 
Europe for stronger sanctions on Russia?

    Answer. If confirmed, I will be committed to working closely with 
our European Allies and partners to maintain unity on Russia sanctions 
and their implementation. The U.S. Government has employed a 
collaborative and consultative approach on sanctions, and I will 
continue to seek feedback from our allies, who have been steadfast 
partners on Russia sanctions.
    My goal is to ensure these sanctions support our important, common 
work in resolving the conflict in Ukraine, restoring control of Crimea 
to Ukraine, and preventing future meddling by Russia in foreign 
elections-while also remaining vigilant against unintended consequences 
for our partners. I will likewise remain mindful of our many foreign 
policy priorities related to Europe as we implement these sanctions, 
including our commitment to promoting European energy security and 
encouraging interoperability in NATO weapons systems. Close 
coordination with our allies is crucial to enabling the sanctions to 
achieve their ultimate goal: imposing costs on Russia, sufficient to 
change the Russian Government's behavior.

    Question 15. Victoria Nuland played a central role in engaging 
directly with Russia and European counterparts regarding the 
implementation of the Minsk agreements. Kurt Volker is the Special 
``Envoy'' in charge of that portfolio now and has been deeply engaged 
in the region. What will your role be with respect to diplomacy on the 
Minsk Process?

    Answer. Special Representative Volker is the U.S. Government's 
point person on Ukraine negotiations. His appointment by Secretary 
Tillerson has reenergized engagement on the negotiations to end 
Russia's aggression in eastern Ukraine. Volker's role is focused on 
negotiations to resolve the conflict in keeping with the terms of the 
Minsk Agreement and, specifically, to restore Ukraine's territorial 
integrity and ensure the safety and security of all Ukrainian citizens, 
regardless of language, ethnicity, or religion.
    This is one important component in the Department's wider approach 
to countering Russian aggression in, and strengthening, the state of 
Ukraine. Russian aggression is not limited to eastern Ukraine, and our 
relationship with Ukraine is not limited to negotiations to resolve the 
conflict in the east. If confirmed, I will lead the State Department 
effort to counter Russian aggression more broadly, including in Crimea, 
and elsewhere in Europe. While its military defends the nation in the 
east, Ukraine simultaneously faces another fierce engagement--what 
Ukrainian Prime Minister Groysman and others have described as the 
``war on corruption''--the outcome of which will define Ukraine's 
future. While Ukraine has accomplished much since the heady days of its 
2014 Euromaidan revolution, there is still much to be done to ensure 
Ukraine fulfills its European, democratic ambitions. This transition 
away from Russian influence, requiring difficult, but necessary 
political and economic reforms, is arguably even more critical in the 
long-run than the conflict in the east.
    My role, if confirmed, will be to lead in the development and 
implementation of the overall U.S. approach to Ukraine while 
coordinating closely with Special Representative Volker on negotiations 
with Russia. I have every confidence in Volker's ability to succeed 
and, if confirmed, will work to ensure frequent and effective 
communication between him, myself and the Secretary so that his work 
and the Bureau's wider approach to Ukraine are coordinated.

    Question 16. Russia has also deployed its military and other 
influence tools to support the breakaway of territories in Georgia and 
Moldova. What will you do to counter Russian aggression in these states 
and address the ``frozen conflict'' situations in them? How will you 
promote democratic, accountable governance and the rule of law in 
Georgia and Moldova, critical antidotes to Russia's attempts to 
undermine their sovereignty and stability?

    Answer. The U.S. supports Georgia's sovereignty and territorial 
integrity within its internationally-recognized borders and reject 
Russia's recognition of South Ossetia and Abkhazia. I support the 
continuation of active U.S. participation in the Geneva International 
Discussions, the only forum that brings together Georgia, Russia, the 
United States, and de facto officials from Abkhazia and South Ossetia 
and addresses the security and humanitarian consequences of the 2008 
conflict. The United States counters Russian influence in Georgia by 
supporting democracy and governance, promoting economic growth through 
targeted economic opportunities, and increasing access to objective 
sources of information for populations vulnerable to Russian influence, 
including in communities bordering the Russian occupied Georgian 
territories of South Ossetia and Abkhazia. U.S. policies and 
corresponding assistance programs in Georgia strengthen institutional 
checks and balances and the rule of law. U.S. assistance builds the 
capacity of law enforcement authorities and encourages reform in 
criminal justice sector institutions, strengthening Georgia's ability 
to prosecute transnational organized crime and maintain the country's 
low levels of corruption. If confirmed, I will continue to support 
these important priorities in Georgia.
    Concerning Moldova, the United States supports the country's chosen 
European trajectory by building resiliency in Moldovan institutions so 
they are better able to withstand Russian malign influence. I will 
continue our bilateral coordination in a number of key areas, including 
efforts to modernize and increase the capacity of Moldovan law 
enforcement and criminal justice institutions to counter corruption, 
combat trafficking in persons, and support essential reforms in the 
justice and law enforcement sectors. I will continue to focus on 
building the capacity of Moldova's internal security institutions to 
effectively and appropriately respond to destabilizing activities. I 
will also continue to ensure our assistance increases Moldova's energy 
security by advancing renewable energy opportunities and promoting 
interregional connectivity to reduce reliance on Russian resources. 
Moreover, I will work to strengthen Moldova's economic growth by 
continuing programming that improves the business environment. Such 
assistance will foster investment opportunities for American 
businesses, as well as counter Russian malign influence by reducing 
Russia's economic leverage over Moldova. I will actively participate in 
the 5+2 negotiations, which seek to provide for a true special status 
for Transnistria while guaranteeing Moldova's sovereignty and 
territorial integrity. The United States supports the full 
implementation of the 1999 Istanbul summit commitments.

    Question 17. The recent Russia sanctions legislation was signed 
into law on August 2 and includes a robust authorization for assistance 
to counter malign Russian Government influence across Europe and 
Eurasia. In contrast, the administration's FY18 budget request called 
for significant cuts across Europe, at a time when Russia is 
aggressively attacking democratic institutions and exerting its 
influence across the continent. What is your plan for implementing the 
intent of this legislation with respect to building resilience in 
democratic institutions in Europe?

    Answer. Russia uses a constellation of approaches, overt and 
covert, to influence the policies of other governments and undermine 
domestic stability in Europe. Russia seeks to weaken European unity and 
erode faith in democratic institutions. A Europe whole, free, and at 
peace is in the interests of the United States. Efforts to disrupt 
democratic processes and weaken unity directly and negatively affect 
U.S. interests and security, while institutionalized respect for human 
rights, good governance, and rule of law contributes to long-term 
stability. By promoting our shared democratic values, and by holding 
our European partners accountable to their commitments and the rule of 
law, the United States strengthens our partners' capabilities to 
mitigate vulnerabilities to malign influences and counter threats to 
their security and sovereignty. The approach to this must be 
comprehensive and whole-of-government, and the Department of State has 
a critical role to play in addressing this threat.
    If confirmed, I will prioritize efforts to build the resilience of 
our European partners against Russia's efforts to undermine these 
democratic processes, including through exchanges of information and 
best practices, as well as programming for European publics. Secretary 
Tillerson has been clear that he views as the highest priorities for 
U.S. assistance those areas of Central and Eastern Europe affected by 
pressure from the Russian Federation. We will continue ongoing 
assistance efforts and engagements that seek to build and reinforce the 
rule of law, support democratic institutions, promote human rights, and 
drive economic development in vulnerable countries in Europe.

    Question 18. Some have criticized the current Serbian Government 
for rolling back democratic reforms and press freedom, and Belgrade 
also continues to maintain close ties with Moscow while seeking to join 
the EU. How will you manage relations with Belgrade? What can we do to 
keep Serbia on its stated path to Europe, at the same time supporting 
the democratic change that is needed there and, of course, urging 
Serbia to recognize Kosovo as an independent state?

    Answer. A democratic, prosperous Serbia that takes a positive role 
in the region is fundamentally important to the stability of the 
Western Balkans. Given its historic, economic, ethnic, and political 
ties to its neighbors, Serbia is often described as the linchpin of the 
Western Balkans. If confirmed, I will prioritize integrating Serbia 
into the rest of Europe and the West in order to cement it and the 
region on a path towards development and stability--in line with the 
national security interests of the United States.
    Serbia is also an important security partner for the United States. 
It is a member of the Global Coalition to Defeat ISIS, has a robust 
State partnership program with the Ohio National Guard, and keeps an 
average of 330 service members in UN and EU peacekeeping operations in 
places such as the Central African Republic, Cyprus, and Lebanon.
    I recognize that Serbia often seeks to balance its relationship 
with the West and Russia. Serbia sometimes takes actions the United 
States does not support, such as observing Russian military maneuvers 
in Crimea or sending humanitarian supplies to Syria via Russian planes, 
instead of through the United Nations.
    However, I firmly believe Serbia's future lies with Europe and the 
West, and that the goal of the United States should be to help it get 
there. To do so, Serbia will have to harmonize its foreign policy with 
that of the European Union, including on Russia and other issues such 
as normalizing relations with Kosovo. If confirmed, I will reiterate 
U.S. support for the EU-facilitated Serbia-Kosovo Dialogue process. I 
will also prioritize continued U.S. assistance to help Serbia implement 
the economic, democratic, and rule of law reforms that are critical to 
Serbia's EU aspirations.
    U.S. support for Serbia to develop itself democratically and 
economically will have long-term implications on the region. Serbia's 
success will help enable the success of the entire Western Balkans and 
United States foreign policy in the region.

    Question 19. Bosnian political leaders seem to have become more 
entrenched in their ethnic camps, which has held back much needed 
reform. The EU has emphasized economic reforms in Bosnia over dealing 
with thorny political issues. I understand that State has pushed for 
more political reform--what are your views on this? What is the right 
approach on Bosnia?

    Answer. The U.S. believes political reform is necessary to improve 
the functionality and stability of Bosnia and Herzegovina. Political 
reforms undertaken by Bosnia and Herzegovina should complement, and not 
compete with, the economic reforms needed to fulfill the European 
Union's Reform Agenda. The United States is working with its European 
partners to support Bosnia and Herzegovina as it undertakes the 
necessary economic and political reforms to join the European Union and 
pursue its goals for further Euro-Atlantic integration. It is only 
through concerted action that we will achieve our goals.
    I understand that the administration believes an agreement on 
reforms that would bring the electoral system into line with rulings by 
the Constitutional Court and the European Court of Human Rights before 
2018 elections is possible. Bosnia's political parties need the help of 
the international community (particularly the EU and United States) to 
reach a timely agreement on electoral reforms. I support the 
administration position that the United States will support reforms 
only if they are consistent with the Dayton framework of one state, two 
entities, and three constituent peoples. Also, any reform agreement 
will require the support or at least the acceptance of parties 
representing all three peoples. It is important the reforms be both 
agreed and implemented in time for the October 2018 elections.

    Question 20. How will you respond to the separatist efforts of 
Republika Srpska, or efforts by some Bosnian Croats to carve out an 
ethnic entity of their own? Do you see any opportunities for 
substantial reform in Bosnia, including coming into compliance with the 
European Court of Human Rights ruling that ethnic criteria for seats in 
the collective presidency and parliament are discriminatory?

    Answer. The United States supports the provisions of the Dayton 
Accords, including a unified Bosnia and Herzegovina comprised of two 
entities: the Federation of Bosnia and Herzegovina and the Republika 
Srpska. The United States and our European Allies are committed to 
working with our Bosnian partners in a spirit of dialogue to pass 
election law amendments that enjoy broad political support. Any changes 
to the election law must move Bosnia and Herzegovina closer to European 
standards by addressing European Court of Human Rights rulings. If 
confirmed, I will actively oppose changes that run counter to European 
Court of Human Rights rulings, make the rulings harder to implement, or 
strengthen divisions among the peoples of Bosnia and Herzegovina. I 
agree with the administration that it is important to make progress on 
electoral reform prior to the October 2018 elections, and will hold 
accountable Bosnian politicians who undermine efforts to build 
consensus.

    Question 21. The Helsinki Final Act and subsequent OSCE agreements 
have established that respect for human rights and fundamental freedoms 
are a ``direct and legitimate concern'' of OSCE participating states, 
not simply an internal matter. Can you outline your views on the OSCE 
and give us your vision on how the United States can best use this 
organization to promote U.S. objectives in Europe? Do you think that 
raising concerns about human rights violations and promoting democratic 
development is imposing our values on others, or represents a strategic 
part of advancing U.S. security interests in Europe and Eurasia?

    Answer. Although Europe has made enormous strides since the 1975 
Helsinki Final Act, serious challenges to human rights, the rule of law 
and democracy persist, with implications for U.S. security interests 
and universal human values. The Organization for Security and 
Cooperation in Europe (OSCE), its institutions, and participants 
address these challenges through the most highly-developed body of 
human rights commitments of any regional organization. If confirmed, I 
will ensure the United States continues to press all OSCE participating 
States to meet their commitments.
    I fully support the continued close cooperation between the United 
States and the OSCE to advance comprehensive political-military, 
economic and environmental, and human dimension security and stability 
throughout Europe and Central Asia. In particular, if confirmed, I will 
continue to promote U.S. leadership and robust engagement in the OSCE 
to advance democratic reform, prevent and resolve conflicts, support 
civil society, promote tolerance and non-discrimination, and defend 
human rights and fundamental freedoms.

    Question 22. Among the OSCE region's protracted conflicts, where do 
you see the greatest possibility for the United States to help achieve 
a positive resolution?

    Answer. The OSCE plays an important role toward resolving the 
protracted conflicts in Europe. If confirmed I will support the United 
States' continued active participation in the relevant negotiating 
bodies--including the Geneva International Discussions addressing the 
conflict in Georgia, the Minsk Group on Nagorno-Karabakh, and the 5+2 
talks on a settlement of the Transnistrian conflict--and will continue 
to encourage dialogue and engagement at the OSCE on these protracted 
conflicts. As a co-chairman of the OSCE Minsk Group, the United States 
fully supports efforts to help Azerbaijan and Armenia find a lasting 
settlement based on international law, the UN Charter, and the Helsinki 
Final Act, including the principles of non-use of force, territorial 
integrity, and the rights to self-determination of peoples. The Geneva 
International Discussions--in which the United States is a 
participant--provide an important forum for dialogue on security, 
stability, and humanitarian issues in Georgia. As an observer of the 
5+2 Talks on the Transnistrian Settlement Process, the United States 
seeks a comprehensive, peaceful, and sustainable settlement of the 
conflict based on the sovereignty and territorial integrity of the 
Republic of Moldova within its internationally recognized borders with 
a special status for Transnistria that fully guarantees the human, 
political, economic, and social rights of its population. The United 
States also heads the OSCE field Mission in Moldova, which works on a 
full range of political, social, economic and other issues in Moldova, 
as well as conflict settlement and implementation of OSCE Summit 
commitments on withdrawal of Russian forces from the territory of 
Moldova.

    Question 23. How can the OSCE help to push back against Russian 
disinformation and aggression across Europe?

    Answer. If confirmed, I will support the OSCE continuing to play a 
pivotal role in addressing Russia's violation of Ukraine's sovereignty 
and territorial integrity, including Russia's occupation and attempted 
annexation of Crimea. I will support implementation of the Minsk 
agreements through the Normandy format process and the Trilateral 
Contact Group. The United States is the largest single contributor of 
financing and personnel to the OSCE Special Monitoring Mission to 
Ukraine (SMM), which provides critical information on the security 
situation in eastern Ukraine and efforts by the sides to implement the 
Minsk agreements. The United States will continue to support the OSCE's 
independent Representative on Freedom of the Media, who promotes 
freedom of expression, including a vibrant, investigative media that is 
one key to exposing disinformation. If confirmed, I will also ensure 
that the United States continues to regularly counter Russian 
disinformation within the OSCE Permanent Council and in other OSCE 
fora.

    Question 24. Hungary and Poland are both engaged in democratic 
backsliding that threatens their judicial independence, press freedom, 
and the functioning of their civil societies. EU efforts to hold both 
of these governments accountable for assaults on their countries' 
democratic institutions have failed to yield positive results. How will 
you seek to curtail this democratic backsliding in two of our NATO 
allies, given the democratic values to which NATO members have ascribed 
and the risks to the alliance if these values are abandoned?

    Answer. The United States works closely with with Poland and 
Hungary as NATO Allies. The United States relies on our allies to be 
strong inside and out, with robust democratic institutions, economies, 
and defense capabilities. As the President, Vice President, and 
Secretary of State have made clear, we expect our allies to meet their 
commitments. This means upholding the values enshrined in the 
Washington Treaty of democracy, individual liberty, and the rule of 
law, and spending at least two percent of GDP on defense. If confirmed, 
I will express our concerns when our allies fall short of their 
commitments in any of these areas, whether on defense spending or 
threats to rule of law and democratic institutions.
    The United States raises concerns with allies privately and 
publicly. Divided societies are more likely to be targeted by malign 
influence, and strengthening Europe's frontier states must be a 
priority in Europe. If confirmed, I will express concerns about 
measures in Poland, Hungary or any other ally that weaken the 
separation of powers or any other component of a sound constitutional 
order. I will reinforce the importance the United States places on 
media freedom and a level playing field for U.S. companies abroad. At 
the same time, in both countries, I will work to strengthen bilateral 
ties, interpersonal relationships and cooperation in the security, 
energy and other realms that advance U.S. interests.
    If confirmed, I will also seek ways, in partnership with others, to 
support civil society, civic education, and independent media. The 
region's transformation still requires U.S. attention and commitment if 
democratic gains are to be sustained. If confirmed, I will continue to 
stress the importance of strong democratic institutions in ongoing 
efforts to build and maintain prosperous economies, attract investment 
and resist malign influences.

    Question 25. Since last year's failed coup, the government-directed 
crackdown in Turkey has been massive, with some fifty thousand 
individuals reportedly detained, including human rights workers, 
journalists, teachers, judges, opposition politicians, and U.S. 
citizens. I was shocked to see that two senior Amnesty International 
officials were arrested and remanded to pretrial detention this summer. 
Regarding last year's failed coup, what are the implications for our 
relationship with Turkey if Turkish democracy continues to erode, or 
Turkey veers toward a one-party state? How should the United States 
respond?

    Answer. Turkey remains a key NATO Ally and critical partner in the 
Global Coalition to Defeat ISIS. Its strategic location and regional 
clout give Ankara significant influence on issues of core interest to 
the United States, including Iraq, Syria, the Eastern Mediterranean, 
and Afghanistan. It is in the U.S. national interest for Turkey to be a 
stable, democratic, prosperous, and reliable Ally. The health and 
vibrancy of Turkish democracy matters and is important to the long-term 
stability of Turkey and the entire region.
    Turkey has an obligation to bring those responsible for the 
attempted coup to justice, while ensuring transparency, rule of law, 
freedom of the press, freedom of speech, human rights, and fundamental 
freedoms for the entire population. These tenets are essential to the 
strength of democratic societies and represent the same principles the 
Turkish people so courageously defended last year. The prolonged state 
of emergency is threatening these very principles, as well as causing 
rifts with key allies and partners. If confirmed, I will urge the 
Government of Turkey to end the state of emergency and rely on its 
democratic institutions, which are sufficiently strong to overcome the 
threats and challenges Turkey faces.
    The detention of U.S. citizens, Amnesty International and other 
human rights officials, journalists, academics, prosecutors, judges and 
opposition politicians is very concerning. If confirmed, I will 
underscore with the Turkish Government the importance of respect for 
due process and individual rights, as enshrined in the Turkish 
Constitution and consistent with Turkey's own international 
commitments. Non-governmental organizations, dissenting voices, and a 
robust civil society are essential elements of any strong democracy. If 
confirmed, I will remind the Turkish Government that freedom of 
expression, including for speech and the media- even speech which some 
find controversial or uncomfortable--strengthens democracy and needs to 
be protected. At the same time, I will continue to work to strengthen 
the U.S.-Turkish security relationship and to deepen Turkey's anchoring 
in the transatlantic alliance.

    Question 26. Let us assume the United States walks away from the 
nuclear deal with Iran and Europe does not follow us. Do you believe 
that the best policy for the United States, if we walk away from the 
nuclear agreement with Iran, is to impose sanctions on European 
companies and banks that continue to do business with Iran?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our 
European partners. I cannot prejudge the outcome of the 
administration's review in terms of sanctions implications.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial. If confirmed, it will be one of my highest 
priorities to ensure that we closely coordinate with our European 
partners and the European Union to ensure the effectiveness of any 
measures to prevent Iran from obtaining a nuclear weapon and to combat 
Iran's malign activities more broadly, including its ballistic missile 
program and support for terrorism.

    Question 27. With increased incidents of hate at home and in 
Europe, concrete initiatives addressing racism and xenophobia are 
critical for the safety of our diplomats. I have annually supported 
funds to address anti-Semitism in Europe. How can we work together to 
establish a similar funded initiative for Europe to counter racism and 
xenophobia?

    Answer. If confirmed, ensuring the safety of our diplomats and all 
Americans abroad will be my number one priority. The Department of 
State works with our European partners to combat anti-Semitism and 
other forms of intolerance, to foster inclusion, and to promote the 
human rights of persons belonging to vulnerable groups, including those 
of the Jewish faith. The Department also annually reports on anti-
Semitism in European countries where threats or attacks against Jewish 
persons are particularly significant. In addition to diplomatic 
engagement, U.S. foreign assistance in Europe and Eurasia supports and 
empowers civil society in these areas, helping to foster increased 
inclusion of minority and disadvantaged groups.
    As Europe grapples with a rise in xenophobic far-right parties, I 
look forward, if confirmed, to working with you to strengthen our 
diplomacy and partnerships with Europeans as well as such European 
institutions as the OSCE, the European Union and the Council of Europe 
to ensure we are adequately combatting racism and xenophobia. If 
confirmed, I will continue to speak out forcefully against racism and 
xenophobia.

    Question 28. Anti-Semitism, harassment and discrimination against 
Roma and Europeans of African descent, closing borders to refugees from 
Africa, Syria, Afghanistan and elsewhere are cause for concern in 
Europe. As the OSCE Parliamentary Assembly's Special Representative on 
Anti-Semitism, Racism and Intolerance, I have supported work to combat 
intolerance in Europe. If confirmed as Assistant Secretary, what will 
you do to ensure that anti-Semitism, harassment and discrimination 
against Roma and Europeans of African descent, and closing borders to 
refugees from Africa, Syria, and Afghanistan remain of top priority in 
United States foreign policy and in our OSCE work?

    Answer. Promoting human rights and democratic governance is a core 
element of U.S. foreign policy. These values form an essential 
foundation of stable, secure, and functioning societies. Standing up 
for human rights and democracy is not just a moral imperative but is in 
the interest of the United States in making the world more stable and 
secure. As Secretary Tillerson said in the introduction to the 2016 
Annual Country Reports on Human Rights Practices, when it comes to 
human rights, ``our values are our interests.''
    The United States works with European and Eurasian states to 
achieve common goals, engages in formal bilateral democracy and rule of 
law dialogues, and actively supports human rights defenders and civil 
society through jointly-funded programs and related efforts. Through 
multilateral fora and bilaterally, the United States works with 
governments in Europe and Eurasia to combat anti-Semitism, xenophobia 
and other forms of intolerance, foster inclusion and promote the human 
rights of persons belonging to vulnerable minorities, including Roma, 
Europeans of African descent and refugees in Europe.
    If confirmed, I will continue to work closely with the OSCE's 
Office for Democratic Institutions and Human Rights, and with the 
OSCE's respective Tolerance Representatives, to condemn and combat 
anti-Semitism, anti-Christian and anti-Muslim sentiment, racism and 
other forms of intolerance and hate-motivated crimes against members of 
vulnerable populations, including LGBTI persons, women, persons with 
disabilities, and migrants. At the Hamburg Ministerial, the United 
States supported the adoption of a working definition of anti-Semitism, 
and worked with Finland in support of a widely endorsed proposed 
decision on strengthening the OSCE's engagement on the human rights and 
inclusion of persons with disabilities. Unfortunately, Russia blocked 
consensus on both decisions.
    If confirmed, I will continue to promote and speak out strongly in 
support of human rights, including those of the most vulnerable.

    Question 29. We are dismayed by the failure of Serbian political 
leaders and officials to fulfill the promises they freely made to bring 
to justice those responsible for the murder of the Bytyqi brothers in 
1999. Reports are that the leading suspect in the case has close ties 
to the ruling party. Given this administration's emphasis on ``America 
First,'' what will you do to encourage Belgrade finally to act in this 
case of three U.S. citizens who were, without cause or legal 
proceeding, brutally executed by Serbian Interior Ministry forces and 
then dumped into a mass grave almost 20 years ago?

    Answer. I share your disappointment with Serbia's lack of progress 
in the Bytyqi case. administration officials have raised the case with 
Serbian leaders at all levels of government, including with Serbian 
President Aleksandar Vucic. The United States has also informed Serbian 
officials that these issues stand in the way of closer bilateral 
relations. The State Department maintains regular contact with the 
Bytyqi family, and, along with the family, continues to seek additional 
strategies to push for progress on the case. Earlier this year, Serbia 
appointed a new Special War Crimes Prosecutor--the position had 
remained vacant for almost a year and a half--and U.S. officials have 
asked her to make the Bytyqi case a priority in her work. I am hopeful 
that that the new Prosecutor will advance the investigation and 
prosecution of those responsible for the Bytyqi murders.

    Question 30. The purportedly simplified citizenship procedure in 
Hungary, which eases the process for ethnic Hungarians in neighboring 
countries to acquire citizenship, has been dogged by reports of 
corruption and the sale of Hungarian passports and has resulted in a 
roughly 10 percent increase in the number of Hungarian citizens. But 
the Hungarian Government's interest in expanding what it perceives as a 
sympathetic voting constituency before the 2018 elections may make them 
disinclined to remedy systemic corruption in the issuance of Hungarian 
passports and thus increase the likelihood that the Visa Waiver Program 
will be abused. How will you address these and other national security 
issues relating to Hungary, including Hungary's evolving relations with 
Russia?

    Answer. We rely on our allies, including Hungary, to be strong 
domestically and internationally. We also look to them to uphold the 
spirit and letter of the Washington Treaty, including its commitments 
to meeting defense investment obligations and upholding our shared 
values of democracy, individual liberty, and the rule of law. If 
confirmed, I will emphasize to Hungary the importance of these 
responsibilities and, if they are not met, express U.S. concerns as a 
close friend and ally.
    Respect for rule of law and the fight against corruption are 
critical to ensuring the integrity of Hungary's passport issuance 
procedures. Hungary has a sovereign right to determine its citizenship 
laws; at the same time, the process through which individuals obtain 
citizenship and passports are of international concern, particularly as 
they affect our border security. Integrity of a country's identity 
documentation procedures is a key consideration of Visa Waiver 
Program's security framework. If confirmed, I expect to work closely 
with the Department of Homeland Security and the Department of State's 
Bureau of Consular Affairs to ensure the protection of our national 
security.

    Question 31. In many parts of the region you cover, the challenges 
facing lesbian, gay, bisexual, transgender and queer people include 
societal violence, government crackdowns, and/or ``anti-propaganda'' 
laws that criminalize any discussion of homosexuality. Unfortunately, 
the Trump administration has sent concerning signals that it will not 
prioritize promotion of human rights, particularly of LGBT persons. How 
do you plan to raise with your counterparts the human rights issues 
facing LGBT persons? Do you see these issues as relevant to security 
and stability in Europe and Eurasia?

    Answer. The Department of State remains committed to protecting the 
human rights of all persons, including LGBT persons. Democracy and 
stability are most secure when all people, including the most 
vulnerable, live freely without fear of violence or discrimination.
    In June, Secretary Tillerson emphasized that violence and 
discrimination against any vulnerable group undermines collective 
security and American values, and has raised concerns with the Russian 
Government about the treatment of LGBT persons in Chechnya. U.S. 
Embassies--including those in hostile environments--continue to take 
steps to protect the human rights of LGBT persons. U.S. diplomats 
continue to use their convening power to bring different allies 
together in support of human rights and fundamental freedoms. If 
confirmed, I will continue the Department's special focus on the 
protection of vulnerable groups, including religious and ethnic 
minorities, persons with disabilities, survivors of gender-based 
violence, and LGBT persons.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to A. Wess Mitchell by Senator Robert Menendez

    Question 1.  This month, the Russian government poured tens of 
thousands of troops into its Zapad military exercises. What do you 
think the significance of these exercises with these kinds of troop 
levels means for American security posture in Europe?

    Answer. The ZAPAD 2017 exercise has raised regional tensions within 
Europe. Russia's disregard for the territorial integrity of its 
neighbors has caused significant concern among NATO Allies and partners 
about potential threats to their security.
    Russia has the right to exercise its forces; the United States and 
its NATO Allies conduct military exercises as well. However, we adhere 
scrupulously to all of our commitments with regard to military 
transparency under the OSCE's Vienna Document and have been careful to 
meet all relevant arms control obligations. Russia's lack of 
transparency regarding some of its large military activities has 
increased the risk of misunderstanding or miscalculation. Russia's 
neighbors are particularly concerned about Russia's so-called ``snap'' 
military exercises where Russia fails to inform its neighbors in 
advance.
    It is important the U.S. and our NATO Allies continually review our 
military posture and military activities and exercises in Europe. If 
confirmed, I am committed to working with Allies to ensure our posture 
is capable of meeting the full range of threats confronting NATO.
    In the face of continued Russian aggression in Ukraine and 
provocative behavior elsewhere, we are taking prudent, concrete 
measures to support the security of NATO Allies and partners. The U.S. 
and NATO posture in the region is defensive, proportionate, and in line 
with international commitments. NATO's unity is critical to an 
effective deterrent.

    Question 2.  How much of a military threat does Russia pose to our 
European neighbors? What are the administration's plans to continue to 
reassure our European allies that the United States remains committed 
to transatlantic security?

    Answer. Russia has demonstrated a willingness to use military force 
against its neighbors, most recently in Ukraine, and to employ active 
measures of various forms including hybrid warfare, disinformation 
campaigns, and malign influence activities. The United States should 
continue to work closely with its allies and partners to enhance 
collective resilience against these threats. It is important for the 
United States to pursue a whole-of-government approach to address this 
problem set.
    The United States is committed under Article 5 of the North 
Atlantic Treaty to the collective defense of all NATO Allies and has 
led NATO's efforts to establish a persistent, rotational air, land, and 
sea presence on NATO's Eastern Flank. The U.S. is leading the NATO 
enhanced Forward Presence multinational battle group in Poland. In 
addition, the United States supports deterrence and defense activities 
in Europe through the European Deterrence Initiative (EDI). This 
administration's Fiscal Year 2018 Budget request included $4.8 
billion--a $1.4 billion increase from 2017--to fund EDI. The EDI funds 
Operation Atlantic Resolve (OAR), which is the U.S. contribution to 
NATO's enhanced deterrent posture. OAR increases U.S. presence across 
Europe (including the deployment of a rotational Armored Brigade Combat 
Team to NATO's east), expands U.S. participation in exercises and 
training activities with NATO Allies and partners, enhances 
prepositioning of U.S. military equipment in Europe, improves 
infrastructure at military installations, and provides assistance to 
build the capacity of our allies and partners to defend themselves and 
enable their full participation as operational partners in responding 
to crises.
    The United States is also working to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies in key European states. The effects of Russian pressure 
continue to be greatest in the frontline states of Ukraine and Georgia, 
where Russia undermines the sovereignty and territorial integrity of 
these neighbors. In response to Russian aggression in Ukraine, the 
Departments of State and Defense have committed over $750 million in 
training and equipment to help Ukraine defend its sovereignty and 
territorial integrity. The Balkans are also increasingly a target of 
Russian malign influence. It is important that our assistance seek to 
deter Russian aggression as well as encourage reforms in these 
countries that eliminate fraud and abuse and reorient their economies 
away from Russian economic pressure.

    Question 3.  What steps will you take to pressure Russia to comply 
with the terms of the agreement?

    Answer. By maintaining Trans-Atlantic unity on sanctions, 
transforming Ukraine's military into a capable fighting force, and 
backing Ukraine's reform agenda, we have made clear to Moscow that the 
invasion of eastern Ukraine is a losing proposition. We must keep up 
the pressure, and if confirmed, I will make it one of my highest 
priorities.
    As Secretary Tillerson has said, U.S. sanctions will stay in place 
until Russia fulfills its Minsk commitments. The separate Crimea-
related sanctions will remain until Moscow returns the peninsula to 
Ukraine. The existing sanctions regimes, in coordination with G7 and EU 
sanctions, provide leverage to compel Moscow to fulfill its 
commitments. We must also continue to strengthen Ukraine's resiliency 
against Russian pressure. In response to Russian aggression, the United 
States has committed more than $750 million in security assistance to 
provide training and equipment to help Ukraine defend its sovereignty 
and territorial integrity, better monitor and secure its borders, and 
deploy its forces more safely and effectively. The Department is 
closely examining how to best use security assistance funding going 
forward to bolster Ukraine's ability to defend its sovereignty and 
territorial integrity.
    In addition to support for Ukraine's territorial integrity, the 
United States is implementing a robust assistance program to build 
democratic institutions, promote economic development, combat 
corruption, and strengthen Euro-Atlantic integration. The more Ukraine 
builds its economy and strengthens its democratic institutions, the 
more Russia fails in its effort to destabilize the country by 
continuing the conflict in the Donbas.

    Question 4.  How will you engage with Russia and Ukraine to push 
back further efforts by Russia to increase its occupation and influence 
of Ukraine?

    Answer. Secretary Tillerson reenergized our engagement to end 
Russia's aggression in eastern Ukraine by appointing Kurt Volker as 
Special Representative for Ukraine Negotiations--the U.S. government's 
point person on Ukraine negotiations. Volker has clearly delineated our 
key goals: the restoration of Ukraine's territorial integrity and the 
safety and security of all Ukrainians, regardless of language, 
nationality, religion, or ethnicity. Since his appointment in early 
July, Volker has closely coordinated with the Normandy Quartet 
(including France, Germany, Russia, and Ukraine) and has engaged with 
other allies and stakeholders in an effort to break the logjam in the 
Minsk process. I have every confidence in Special Representative 
Volker's ability to succeed. If confirmed, I will work to ensure 
frequent and effective communication between him, myself and the 
Secretary so that his work and the Bureau's wider approach to Ukraine 
are coordinated.
    The United States has been clear with Russia that its aggression in 
Ukraine is the key obstacle to improving our bilateral relationship. 
Russian aggression is not limited to eastern Ukraine. If confirmed, I 
will work to counter Russian aggression more broadly, including in 
Crimea, and elsewhere in Europe.

    Question 5.  Congress recently authorized lethal assistance to 
Ukraine, do you support that effort? What steps do you believe we 
should take to more effectively support Ukraine as it battles Russian 
hybrid warfare?

    Answer. To my knowledge, the United States has neither provided 
defensive weapons nor ruled out the option of doing so, but the 
administration will continue to examine how best to use U.S. security 
assistance going forward to bolster Ukraine's ability to defend its 
sovereignty and territorial integrity. As Secretary Tillerson stated, 
Ukraine has a right to defend itself against Russian aggression. The 
United States continues to focus on finding a diplomatic solution to 
the crisis in eastern Ukraine through the full implementation of the 
Minsk agreements.
    Russian aggression in Ukraine includes the use of hybrid warfare to 
include disinformation and malign influence. Ukraine was the target of 
cyber-attacks in December 2015 and 2016, and in June 2017. On September 
29, an interagency team will visit Kyiv for meetings with Ukrainian 
officials to discuss policy and incident response to cyber-attacks. 
Countering hybrid warfare requires a broad whole of government approach 
in order to build national resiliency.
    In response to Russian aggression, the United States has committed 
more than $750 million in security assistance to provide training and 
equipment to help Ukraine better monitor and secure its borders while 
deploying its forces more safely and effectively. The United States and 
allies established a Multinational Joint Commission and training group 
to coordinate international efforts and build Ukraine's defense 
capacity to deter further Russian aggression. Sanctions, too, remain a 
valuable tool in this effort. As Secretary Tillerson told his Russian 
counterpart directly, Minsk-related sanctions will remain in place 
until Russia fully implements its commitments, and separate Crimea-
related sanctions will remain in place until Russia returns the 
peninsula to Ukraine.
    More broadly, the United States, along with our European Allies and 
partners, has assisted and encouraged Ukraine to pursue broad reforms 
that will reduce vulnerabilities, strengthen democratic institutions, 
and reduce corruption. Reform across sectors such as energy, the 
economy, land, pension, education, healthcare, defense, and most 
importantly judicial, will help to build a stronger and more resilient 
Ukraine. Continuing Kyiv's democratic and economic transformation, 
coupled with more capable Ukrainian Armed Forces, contributes directly 
to Ukraine's resilience in the face of continued Russian aggression, 
and in particular, Moscow's hybrid warfare tactics.

    Question 6.  What would your strategy be to deal with Russian 
aggression in Ukraine and other Russia-related threats in Central and 
Eastern Europe? How do you propose addressing Russia's perceived 
"spheres of influence" or national interests versus another country's 
territorial integrity and national interests? What options would you 
employ to achieve Russia's withdrawal from lands it unlawfully 
controls, such as Crimea, eastern Ukraine, Abkhazia, South Ossetia, and 
Transnistria?

    Answer. Russia is engaged in a campaign to undermine core Western 
institutions and weaken faith in the democratic and free-market system. 
This campaign is aggressive and coordinated. Russia has demonstrated a 
willingness to employ active measures of various forms including hybrid 
warfare, disinformation campaigns, and malign influence activities. A 
Europe whole, free, and at peace is in the interests of the United 
States. Efforts to disrupt democratic processes and weaken European 
unity directly and negatively affect U.S. interests and security. The 
United States should continue to work closely with its allies and 
partners to enhance collective resilience against these threats. It is 
important for the United States to pursue a whole-of-government 
approach to address this problem set.
    In Europe, the United States is seeking to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies. The effects of Russian pressure continue to be 
greatest in the neighboring states of Ukraine and Georgia, where Russia 
undermines the sovereignty and territorial integrity of those 
countries. The Western Balkans are also increasingly a target, as 
Russia is trying to block the Euro-Atlantic integration of the region. 
It is important our assistance deter Russian aggression against these 
countries as well as encourage reforms in them to eliminate fraud and 
abuse and reorient their economies away from Russian economic pressure. 
The European Deterrence Initiative (EDI), including the $4.8 billion 
requested for FY 2018, provides funding to increase U.S. presence 
across Europe, expand U.S. participation in exercises and training 
activities with NATO Allies and partners, enhance prepositioning of 
U.S. military equipment in Europe, improve infrastructure at military 
installations, and provide assistance to build the capacity of our 
allies and partners to defend themselves and enable their full 
participation as operational partners in responding to crises.
    The administration supports a country's right to choose its own 
future, its own partners, without outside interference or intimidation. 
The administration in turn continues to support Georgia's sovereignty 
and territorial integrity within its internationally-recognized borders 
and rejects Russia's recognition of South Ossetia and Abkhazia. If 
confirmed, I would support this policy by continuing to actively 
participate in the Geneva International Discussions--the only forum 
that brings together Georgia, Russia, the United States, and de facto 
officials from Abkhazia and South Ossetia--and addresses the security 
and humanitarian consequences of the 2008 conflict. Within Georgia, I 
would continue to support efforts to counter Russian influence by 
strengthening democracy and governance, promoting economic growth by 
targeting economic opportunities, and increasing access to objective 
sources of information for populations vulnerable to Russian influence, 
including in communities bordering the Russian occupied Georgian 
territories of Abkhazia and South Ossetia.
    With regard to Ukraine, transatlantic unity on sanctions, support 
for the Ukrainian military's transformation into a capable fighting 
force, and strong encouragement of Ukraine's reform agenda all serve to 
combat Russia's influence and aggression. As Secretary Tillerson has 
said, U.S. sanctions will stay in place until Russia meets its Minsk 
commitments. Crimea-related sanctions will remain in place until Russia 
returns the peninsula to Ukraine.
    Concerning Moldova, the United States supports the country's chosen 
European trajectory by helping build resiliency in Moldova's governance 
institutions so they are better able to withstand Russian malign 
influence. If confirmed, I would encourage active Department 
participation in the 5+2 negotiations, which seek to provide for a true 
special status for Transnistria while guaranteeing Moldova's 
sovereignty and territorial integrity.

    Question 7.  In recent months, Erdo?an has undertaken an intense 
crackdown on perceived opponents--what many are calling a witch hunt in 
retaliation for the July 2016 coup attempt. This has included the 
firing more than 100,000 state employees including soldiers, police 
officers, members of the military, judges, and even midwives; 
imprisonment of tens of thousands, including journalists, human rights 
defenders, and activists, many of whom have alleged torture and brutal 
mistreatment while in custody; restrictions on internet and social 
media access; and the shuttering of media and civil society 
organizations.
    What implications has the ``purge'' since last summer's attempted 
coup had on domestic institutions in Turkey, particularly the judicial 
system and police?

    Answer. The 2016 coup attempt has had far-reaching impacts on 
Turkey. The dismissal or suspension of nearly 150,000 state employees, 
including police officers, prosecutors, and judges, and detention of 
tens of thousands, including human rights activists, journalists, 
academics, opposition politicians, and U.S. citizens, is of deep 
concern. The prolonged state of emergency runs contrary to democratic 
principles and undermines domestic institutions. If confirmed, I will 
underscore to the Turkish government the importance of respect for due 
process and individual rights, as enshrined in the Turkish Constitution 
and consistent with Turkey's own international commitments. At the same 
time, I will continue to work to strengthen the U.S.-Turkish security 
relationship and to deepen Turkey's anchoring in the transatlantic 
alliance.

    Question 8.  In recent months, Erdo?an has undertaken an intense 
crackdown on perceived opponents--what many are calling a witch hunt in 
retaliation for the July 2016 coup attempt. This has included the 
firing more than 100,000 state employees including soldiers, police 
officers, members of the military, judges, and even midwives; 
imprisonment of tens of thousands, including journalists, human rights 
defenders, and activists, many of whom have alleged torture and brutal 
mistreatment while in custody; restrictions on internet and social 
media access; and the shuttering of media and civil society 
organizations.
    What implications has the ``purge'' since last summer's attempted 
coup had on international institutions including Turkish delegations to 
NATO and the U.N.?

    Answer. Turkey remains an active U.N. member working on a number of 
issues of core interest to the United States, including the 
international responses to the crisis in Syria, North Korean nuclear 
provocations, and Russian aggression in Crimea. Turkey also remains a 
key NATO Ally and critical partner in the Global Coalition to Defeat 
ISIS. After the July 2016 attempted coup, the Government of Turkey 
recalled some Turkish military officials serving at multiple NATO 
military headquarters, but the Turks have continued to provide officers 
for NATO assignments. Since the attempted coup, Turkey has maintained 
its participation in NATO operations in Kosovo and Afghanistan.

    Question 9.  Turkish security guards violently assaulting peaceful 
protestors in Sheridan Circle in Washington, D.C. in May of this year 
during President Erdogan's visit. Do you believe the administration has 
taken the appropriate steps to fully condemn this assault on American 
values and fundamental freedoms of free speech and assembly?

    Answer. I share Secretary Tillerson's opinion that the conduct of 
some Turkish security personnel during President Erdogan's visit to the 
United States was deeply disturbing.
    I have not been privy to discussions with Turkish officials, but I 
can assure you that if confirmed, I will always strive to protect the 
interests, safety, and security of the United States and the American 
people. I will work to ensure that we have a relationship with Turkey 
that protects, promotes, and defends those interests.

    Question 10.  Turkish security guards violently assaulting peaceful 
protestors in Sheridan Circle in Washington, D.C. in May of this year 
during President Erdogan's visit. Will you continue to raise this issue 
with the Turkish government?

    Answer. I share Secretary Tillerson's opinion that the conduct of 
some Turkish security personnel during President Erdogan's visit to the 
United States was deeply disturbing.
    I have not been privy to discussions with Turkish officials, but I 
can assure you that if confirmed, I will always strive to protect the 
interests, safety, and security of the United States and the American 
people. I will work to ensure that we have a relationship with Turkey 
that protects, promotes, and defends those interests.

    Question 11.  Are you concerned about increasing Turkish-Russian 
military cooperation?

    Answer. Turkey is an important NATO ally that supports U.S. 
national security interests in a number of crucial areas, notably in 
the effort to defeat ISIS. With regard to Turkish-Russian military 
technical cooperation, Turkey's expression of interest in purchasing 
Russian S-400 air defense missiles is concerning, and potentially 
constitutes a violation of recent U.S. sanctions. If confirmed, I will 
continue to make clear to Turkish officials the importance of the 
commitment NATO Allies, including Turkey, made at the Warsaw Summit in 
2016, to enhance resilience by working to address existing dependencies 
on Russian-sourced legacy military equipment through national efforts. 
If confirmed, I will work to strengthen U.S.-Turkish security 
cooperation and will encourage all Allies to abide by their NATO 
commitments and procure military equipment interoperable with NATO 
systems.

    Question 12.  Unfortunately, the negotiation process over the 
Cyprus question is currently stalled, as U.N. Secretary General Antonio 
Guterres concluded the latest round in Crans-Montana in July 2017 after 
the parties failed to reach agreement. U.N. Special Envoy Espen Barth 
Eide has left his position. Will the United States maintain high level 
engagement on this issue?

    Answer. The United States will maintain high-level engagement on 
this issue. Although it did not participate formally in the UN-
facilitated, leader led negotiations, the United States has played a 
critical role. The administration has sought to be helpful in 
facilitating communication between the sides throughout the 
negotiations maintaining a strong relationship with both leaders, and 
the UN. The U.S. remains ready to assist with the resumption of 
negotiations in ways the sides deem helpful and we remain committed to 
the framework for reuniting Cyprus as a bi-zonal, bi-communal 
federation based on political equality and continues to urge the sides 
to take advantage of the work achieved thus far. Senior American 
officials are prepared to travel to Cyprus to support efforts to return 
to negotiations.

    Question 13.  Unfortunately, the negotiation process over the 
Cyprus question is currently stalled, as U.N. Secretary General Antonio 
Guterres concluded the latest round in Crans-Montana in July 2017 after 
the parties failed to reach agreement. U.N. Special Envoy Espen Barth 
Eide has left his position. What implications does Erdogan's narrow 
victory in the referendum have on the ongoing negotiations of the 
Cyprus question?

    Answer. We are hopeful that, after the period of reflection, all 
parties will engage in the effort to reach a negotiated settlement. The 
Cyprus issue did not feature prominently in the 2017 referendum 
campaign. If confirmed I will continue to encourage all parties to find 
common ground.

    Question 14.  Unfortunately, the negotiation process over the 
Cyprus question is currently stalled, as U.N. Secretary General Antonio 
Guterres concluded the latest round in Crans-Montana in July 2017 after 
the parties failed to reach agreement. U.N. Special Envoy Espen Barth 
Eide has left his position. Do you believe that Erdogan will be willing 
to agree to a withdrawal of Turkish troops from Cyprus?

    Answer. Turkey's troop presence is one question on which the 
parties will need to reach mutual agreement in the context of a final 
settlement. We urge all parties to make the tough compromises necessary 
for a solution.

    Question 15.  How will you work with European countries to ensure 
they live up to international agreements to impose sanctions on state 
sponsors of terrorism and human rights abusers, particularly in Iran 
and North Korea?

    Answer. The United States continues to work very closely with the 
European Union (EU) and European countries to counter the increased 
threats posed by Iran and North Korea (DPRK). Transatlantic unity on 
sanctions reinforces their impact.
    On DPRK, the EU is in the process of transposing all U.N. 
designations and restrictions related to DPRK sanctions into EU law. If 
confirmed, I will continue to coordinate with European partners and the 
international community to expand sanctions and increase diplomatic and 
economic pressure on the Kim regime to compel the DPRK to return to 
negotiations, with an ultimate goal of the complete, verifiable and 
irreversible denuclearization of the Korean Peninsula and a dismantling 
of the regime's ballistic-missile programs.
    The United States conducts regular consultations with our EU 
counterparts on human rights in North Korea. The EU is a key partner in 
our efforts to implement the recommendations of the 2014 U.N. 
Commission of Inquiry and to promote accountability for those 
responsible for human rights abuses in the DPRK, including through the 
annual U.N. Third Committee and Human Rights Council resolutions on the 
situation in the DPRK.
    Addressing Iran's continued support for terrorism, and violations 
and abuses of the human rights of its citizens remains a priority for 
the United States and requires use of all tools at the U.S. 
government's disposal, including all non-nuclear related existing 
sanctions, to hold the Iranian government accountable for its actions. 
The United States works with like-minded partners multilaterally, such 
as in the U.N. Human Rights Council and U.N. General Assembly, to 
increase international pressure on Iran for its human rights violations 
and abuses. The U.S. government also regularly targets for financial 
and visa sanctions those who abuse or violate human rights in Iran. The 
Departments of State and Treasury continue to review new targets for 
financial sanctions in consultation with partners.
    If confirmed, it will be a high priority for me to ensure continued 
unity with European allies on DPRK, Iran and other international 
issues.

    Question 16.  How do you expect to rally Europe in favor of more 
economic pressure on Russia? Will you encourage the President to engage 
with European leaders in support of this legislation as well?

    Answer. I am aware many of our European allies have reservations 
about the new sanctions law, and if confirmed, I will be committed to 
working closely with them to maintain unity on Russia sanctions and 
their implementation. The U.S. government has employed a collaborative 
and consultative approach on sanctions implementation, and I will 
continue to seek feedback from U.S. allies, who have been steadfast 
partners on Russia sanctions.
    My goal is to ensure these sanctions support our important, common 
work in resolving the conflict in Ukraine, restoring control of Crimea 
to Ukraine, and preventing future meddling by Russia in foreign 
elections--while also remaining vigilant against unintended 
consequences for our partners. I will likewise remain mindful of our 
many foreign policy priorities related to Europe as the U.S. government 
and the EU implement these sanctions, including our commitment to 
promoting European energy security. Close coordination with our allies 
is crucial to enabling the sanctions to achieve their ultimate goal: 
imposing costs on Russia, sufficient to change the Russian government's 
behavior.

    Question 17.  Do you believe the United States should maintain 
investments into public diplomacy efforts in Eastern Europe?

    Answer. Yes. Public diplomacy efforts that invest in people through 
exchanges, media literacy programs, and English-language trainings are 
indispensable as the United States seeks to advance its national 
interests in the face of a rising tide of Russian disinformation. 
Initiatives such as the International Visitor Leadership Program 
(IVLP), the Fulbright Program, and other people-to-people exchanges 
build enduring relationships that cannot be perfectly measured but rank 
among our most effective investments. This is particularly true in 
countries such as Ukraine and Moldova, where Russian disinformation 
threatens to turn citizens away from the Euro-Atlantic community. Many 
U.S. exchange program alumni become leaders in their home countries; by 
investing in a country's most promising youth through short exchanges, 
we invest in a shared vision for the future. Media-focused exchanges, 
such as Ukraine's Media Partnership Program that pairs independent 
Ukrainian media outlets with U.S. media outlets in a long-term 
mentorship relationship, are equally impactful and result in better 
quality information for the Ukrainian public. Empowering the public 
with facts advances the U.S. goal of a democratic, prosperous, and 
secure Ukraine.
    To inoculate foreign publics against disinformation, our embassies 
work with European partners to build media literacy skills in audiences 
vulnerable to disinformation and fake news. By training citizens to 
more carefully scrutinize news items, we can empower people to protect 
themselves against disinformation, particularly in critical regions 
such as eastern Ukraine. This moves the needle forward on the U.S. 
strategic goal of a Europe whole, free, and at peace. If confirmed, I 
will ensure this work continues.
    English-language programs enable foreign publics to consume 
alternate news and obtain a more balanced perspective of the world. 
Ukrainian President Poroshenko announced 2016 as the Year of English 
and promoted English learning as a way to make Ukraine's workforce more 
competitive as Ukraine pursues its chosen European trajectory. U.S. 
public diplomacy programs are essential to fulfilling this goal. 
English-language programs not only provide skills that help Eastern 
Europeans pursue a Euro-Atlantic path but also build lasting people-to-
people relationships in even the most challenging context.

    Question 18.  What programs do you believe are most effective to 
countering Russian propaganda?

    Answer. Russia rejects the post-Cold War order in Europe and 
increasingly seeks to undermine U.S. influence with our Allies and 
partners with an eye to fragmenting the transatlantic alliance. 
Russia's campaigns use traditional diplomatic, military, and economic 
tools, as well as ``active measures,'' a major component of which is 
propaganda and misinformation. The State Department's public outreach 
strategy is based on the recognition that both the message and the 
messenger are important for effective communication with audiences.
    When making public statements as the United States government, the 
number one goal should be to empower our embassies with materials and 
messaging that the local press can carry, both in print and in digital 
form. This applies both to debunking myths, but more importantly, 
priming the information environment with positive messages about the 
United States and the transatlantic alliance. However, the fight 
against misinformation is bigger than any one country, and the U.S. 
government cannot be as effective if it fights alone. Those most 
vulnerable to malign information campaigns could become our strongest 
messaging allies through systematic support. If confirmed, I will 
continue to work with our allies and partners who are on the frontlines 
of the war of misinformation and arm them with the core competencies 
necessary to not only counter disinformation but advance positive, 
accurate, and responsible messaging. Specifically, I will seek to help 
governments communicate more effectively through the European Digital 
Diplomacy Exchange, empower journalists and other non-governmental 
communicators to uncover and publicize important stories through the 
Digital Communicators Network, and strengthen civil society through 
trainings and networking opportunities through a number of regional 
programs. I will also work to ensure close and effective collaboration 
between the Bureau of European and Eurasian affairs and the Global 
Engagement Center.

    Question 19.  Do you believe the Global Engagement Center can play 
an important and constructive role in promoting American national 
security interests?

    Answer. Yes. Both extremist messaging and state-sponsored 
disinformation operations represent a critical national security threat 
to the United States. The Global Engagement Center (GEC) was mandated 
in the 2017 National Defense Authorization Act to lead and coordinate 
Federal Government efforts to recognize, understand, expose, and 
counter foreign state and non-state propaganda and disinformation that 
undermine U.S. national security interests. The GEC's role in this 
effort is essential to the effective coordination of the multitude of 
U.S. government efforts to counter these national security threats.
    The GEC has a proven track record of playing an important and 
constructive role in promoting American national security interests 
with the work it continues to perform with regard to its original 
counterterrorism mission. The GEC has been pivotal in U.S. effort to 
counter the recruitment of terrorist groups such as ISIS and exposing 
and countering their warped and perverse ideology, and the GEC will 
continue to advance this effort.
    I hope that the GEC will employ the learned skills and successful 
aspects of its counterterrorism mission towards its expanded mission to 
counter propaganda and disinformation emanating from foreign states. 
Congress expanded the GEC's mission and granted it new legal 
authorities out of growing concern about the adverse effects of state-
sponsored propaganda and disinformation, which have emerged as a clear 
national security concern that is increasing in overall size and 
sophistication. State-sponsored disinformation operations impact United 
States foreign policy objectives and create a lack of confidence in 
foreign populations and sow seeds of doubt in the susceptible 
populations living in our allied and partner nations. If confirmed I 
will work to ensure close and effective collaboration between the 
Bureau of European and Eurasian affairs and the GEC.

    Question 20.  Many European countries have experienced an alarming 
uptick in far right wing political movements that are anti-Semitic, 
anti-immigrant, and anti-globalist. Many of these political parties 
reject cooperation with the United States and the wider global 
community. How will you engage with governments that are increasingly 
espousing these beliefs? Will you continue to promote the values of 
democracy, tolerance, and the post-war international order?
    In many parts of the region you cover, the situation facing 
lesbian, gay, bisexual, transgender and queer people can be extremely 
challenging. They often face violence and government crackdowns, and in 
several countries they face "anti-propaganda" laws that potentially 
criminalizes any discussion of homosexuality.

   Unfortunately, the Trump administration's response to all of this 
        has been weak and Secretary Tillerson has stated that he does 
        not view human rights as a priority of his department. This 
        could have dangerous implications for security and stability in 
        the region.

    Answer. Promoting human rights and democratic governance is a core 
element of U.S. foreign policy. These values form an essential 
foundation of stable, secure, and functioning societies. Standing up 
for human rights and democracy is not just a moral imperative but is in 
the interest of the United States in making the world more stable and 
secure. As Secretary Tillerson said in the introduction to the 2016 
Annual Country Reports on Human Rights Practices, when it comes to 
human rights, ``our values are our interests.''
    The United States works with European and Eurasian states to 
achieve common goals, engages in formal bilateral democracy and rule of 
law dialogues, and actively supports human rights defenders and civil 
society through jointly-funded programs and related efforts. Through 
multilateral fora and bilaterally, the United States works with 
governments in Europe and Eurasia to combat anti-Semitism, xenophobia 
and other forms of intolerance, foster inclusion, and promote the human 
rights of persons belonging to vulnerable minorities, including LGBTI 
persons. If confirmed, I will continue to promote and speak out 
strongly in support of democracy and human rights, including those of 
the most vulnerable.

    Question 21.  How do you plan to raise human rights concerns with 
your counterparts, and especially with regards to the LGBTQ community?

    Answer. The Department of State remains committed to protecting and 
promoting the human rights of all persons, including the LGBTQ 
community. Democracy and stability are most secure when all people, 
including the most vulnerable, live freely without fear of violence or 
discrimination. If confirmed, I will continue the Department's special 
focus on the protection of vulnerable groups, including religious and 
ethnic minorities, persons with disabilities, survivors of gender-based 
violence, and LGBTQ persons.
    In June, Secretary Tillerson issued a statement emphasizing that 
violence and discrimination against any vulnerable group undermines 
collective security and American values. U.S. Embassies--including 
those in hostile environments--continue to take steps to protect the 
human rights of LGBTQ persons. If confirmed, I will continue to speak 
out in support of human rights, including those of LGBTQ persons.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to A. Wess Mitchell by Senator Todd Young

    Question 1. What do you believe are Putin's grand strategic 
objectives with respect to the U.S., the EU, and NATO? How should the 
U.S. respond to those objectives?

    Answer. Russia does not accept the post-Cold War settlement in 
Europe and is pushing back against it. The Russian objective is to 
restrict the sovereign choices of the countries on Russia's periphery, 
in particular to prevent those countries from building new 
relationships with NATO and the EU, and to exercise veto power over the 
foreign and security policies of those countries. As the United States 
experienced during the 2016 election, Russia also actively interferes 
in the democratic processes and institutions of Western governments, 
including those of NATO Allies, Partners, and EU member states. It does 
so in order to sow chaos, dilute the support for countries on the 
Russian periphery, and weaken the overall attraction of the democratic 
values that threaten Putin's system of government in Russia.
    I believe our response should be twofold. We must be clear-eyed 
about Russia's transgressions, frank in our dialogue with Russia, and 
resolute in raising the costs of their behavior, including the use of 
military, diplomatic, and law enforcement tools. We must also continue 
to build the resilience of U.S. allies on NATO eastern flank, including 
through the strengthening of military capabilities and through a whole-
of-government approach that works with NATO and the EU to improves the 
defenses of allies and partners against disinformation and malign 
influence. Both areas will be major priorities for me if confirmed.

    Question 2. Based on your experience and your preparation for the 
hearing, what is the difference between the U.S. military posture we 
have in Europe and the U.S. military posture we need? Do you believe 
the U.S. should have a larger and more capable military presence in 
Eastern Europe? Can you provide specifics? Do you believe we should 
have permanently stationed U.S. military units in the Baltics?

    Answer. It is important that the U.S and our NATO Allies 
continually review our military posture and military activities and 
exercises in Europe. If confirmed, I am committed to working with 
Allies to ensure our posture is capable of meeting the full range of 
threats we face today.
    In the face of continued Russian aggression in Ukraine and 
provocative behavior elsewhere, we are taking prudent, concrete 
measures to support the security of NATO Allies. The U.S. and NATO 
posture in the region is defensive, proportionate, and in line with 
international commitments. It represents a significant commitment by 
Allies and is a tangible reminder that an attack on one is an attack on 
all.
    One of the steps the administration has taken to bolster our 
military presence in Europe is the European Defense Initiative (EDI), 
which includes $4.8 billion requested for FY 2018. EDI provides funding 
to increase U.S. presence across Europe, expand U.S. participation in 
exercises and training activities with NATO Allies and partners, 
enhance prepositioning of U.S. military equipment in Europe, improve 
infrastructure at military installations, and provide assistance to 
build the capacity of our allies and partners to defend themselves and 
enable their full participation as operational partners in responding 
to crises.
    In addition to Operation Atlantic Resolve (OAR)--the United States' 
contribution to the Alliance's persistent, rotational air, land, and 
sea presence in NATO's East--the U.S. has also deployed a rotational 
armored brigade combat team (ABCT) to European soil to concretely 
demonstrate action to back up our commitments.
    If confirmed, one of my highest priorities will be to consult early 
and often with our NATO Allies to review the state of forward defenses 
in relation to Russian force levels and military behavior. Through 
these consultations and in coordination with colleagues at the 
Department of Defense, I will examine our posture and plans to 
determine whether additional steps are needed, with a particular 
emphasis on determining the right mix of rotational and permanently 
stationed forces to meet deterrence and defense needs.

    Question 3. Russia has used energy as a tool of coercion against 
our allies and partners in Europe. Specifically what more can we do to 
help our allies and partners in Europe reduce their dependence on 
Russian energy?

    Answer. The administration is committed to working with our 
European partners to enhance European energy security, and if 
confirmed, I would continue this engagement. Energy security derives 
from a diversity of energy type, supply sources, and delivery routes, 
as well as an integrated and efficient regional energy market. An 
energy secure Europe serves as a strong partner for the United States 
in meeting global challenges, and the United States supports European 
energy projects in several sectors. We use both diplomatic engagement 
and assistance programming in support of our European allies and 
partners' efforts to enhance their energy security. Since FY 2014, the 
United States has provided over $92 million toward energy programs in 
Europe and Eurasia.
    In the electricity sector, the United States government engages in 
technical cooperation as the European Union strengthens its electricity 
market regulator, the Agency for the Cooperation of Energy Regulators 
(ACER). The United States supports the Baltic states as they work with 
the European Commission to complete the integration of the Baltic power 
network into the EU electricity grid via Poland. The United States also 
supports key gas projects that will diversify supply sources, including 
the Southern Gas Corridor, the Interconnector Greece-Bulgaria, the 
Interconnector Bulgaria-Serbia, and the Finland-Estonia Baltic 
Connector. Additionally, U.S. support for infrastructure for LNG 
imports, particularly in Croatia, Greece, and Southern Europe, will 
allow Europe to import gas from anywhere in the world. In addition to 
infrastructure, the United States supports the EU's implementation of 
its own market liberalization rules and laws, in particular the Third 
Energy Package, designed to ensure the proper functioning of Europe's 
gas system. The U.S. also supports measures to ensure our partners can 
get the resources they need to be energy secure, such as the recent 
contract between American company Xcoal and Ukrainian firm Centrenergo 
to supply Ukraine with 700,000 tons of anthracite coal by the end of 
2017, which will ensure Ukraine's power plants have sufficient 
feedstock for power generation.
    Russia has and continues to use Europe's reliance on its natural 
gas exports to achieve political and economic objectives that run 
counter to Europe's larger economic and political interests. Russia 
aims to build two new major pipelines, Nord Stream 2 and a multiline 
Turk Stream, which would enable it to largely circumvent Ukraine as a 
transit country while increasing Europe's reliance on its gas exports. 
Russia has an established energy relationship with Europe and it is 
neither possible nor desirable to exclude Russian gas from the European 
market. However, Russia should play by the same rules as others; Russia 
should not be able to use its market position to either exert 
geopolitical leverage on its European neighbors or engage in anti-
competitive practices. I know our European interlocutors share these 
apprehensions, and if confirmed, I will continue close consultation 
with them on this important issue.

    Question 4. Ambassador Huntsman argued in his statement that we 
should not hesitate to remind government officials that they are 
accountable for their actions. It is well known that Russia is 
violating the Intermediate-Range Nuclear Forces Treaty. Consistent with 
your statement, how should NATO and the United States specifically hold 
Russia accountable for its violation of the INF Treaty?

    Answer. Reciprocal transparency is the foundation of effective 
U.S.-Russian arms control. Russia appears to have been in a state of 
non-compliance with the INF Treaty for some time now, and has 
undertaken an expansion and modernization of both its conventional 
forces and nuclear triad. This represents a serious source of concern 
for both the United States and its Allies.
    The administration is currently undertaking a review of INF and the 
U.S.-Russian arms control agenda more broadly. If confirmed, I will 
build on the administration's efforts to pressure Russia to return to 
compliance while working with Allies to ensure they have the tools 
needed to raise the costs of agression and thus ensure Russia will not 
gain a significant military advantage from its decision to violate the 
Treaty. If confirmed, I will work closely with NATO as we develop 
proportionate responses to Russia's ongoing violation and make clear to 
Russian officials U.S. concerns about Russia's violation of the INF 
Treaty and the risks it poses to European and Asian security.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to A. Wess Mitchell by Senator Edward J. Markey

    Question 1. As you know, the situation facing lesbian, gay, 
bisexual, transgender and queer people in Russia can be extremely 
challenging. They often face violence and government crackdowns, with a 
strict ``anti-propaganda'' law that potentially criminalizes any 
discussion of homosexuality.
    Senator Toomey and I have a resolution pending before this 
committee condemning the abuses in Chechnya, calling on the Russian 
Government to protect its citizens, calling on our government to demand 
the release of individuals wrongfully detained, and also to hold 
perpetrators accountable through sanctions under the Magnitsky Act.
    How do you develop a strategy to address human rights concerns in 
Russia, and especially with regards to the LGBTQ community in Chechnya?

    Answer. I share your concern about the violence against the LGBTI 
community in Chechnya. There have been multiple reports of mass illegal 
detentions, systematic torture of hundreds of LGBTI persons, and 
extrajudicial killings. Through public statements and a letter from 
Secretary Tillerson to Foreign Minister Lavrov, the State Department 
has pressed the Russian Government to fully investigate the reports of 
abuse and to prosecute those responsible.
    If confirmed, I will work with Allies and partners to continue to 
call on the Government of Russia to uphold its international 
obligations and OSCE commitments to promote and protect human rights 
and fundamental freedoms. I am committed to upholding the rights of 
individuals in Russia and elsewhere and will continue to support and 
uphold laws enacted by Congress such as the Sergei Magnitsky Rule of 
Law Accountability Act to hold human rights abusers in Russia 
accountable.

    Question 2. Mr. Mitchell, it appears that neither Moscow nor Kyiv 
thinks the ``Minsk-2'' agreements can be implemented. On September 7 
former Swedish Prime Minister Bildt published a piece in the Washington 
Post saying that the Kremlin may be softening its opposition to an 
impartial U.N. peacekeeping force as part of a renewed settlement.
    What are the prospects for achieving a resolution to the conflict 
in Ukraine? Is there any other route for a settlement? What might be 
the impact on U.S. interests if a resolution could only permit some 
continued Russian presence in eastern Ukraine?

    Answer. The United States continues to support Ukraine, along with 
our French and German allies, in pushing for full implementation of the 
Minsk agreements. Russia and the forces it arms, leads, trains, and 
fights alongside in eastern Ukraine are the primary obstacle to Minsk 
implementation. Moscow will only choose to implement the Minsk 
agreements if it believes continued conflict in eastern Ukraine is no 
longer in Russia's interest, and this is why the United States must 
continue to work with our European and G-7 partners to change Russia's 
calculations on Ukraine. Transatlantic unity on sanctions, support for 
the Ukrainian military's transformation into a capable fighting force, 
and strong encouragement of Ukraine's reform agenda have turned the 
invasion of eastern Ukraine into an increasingly losing proposition for 
Moscow. If confirmed, I pledge to keep up the pressure, as this 
presents our best strategy to change Russia's behavior.
    The United States will not accept anything less than the full 
restoration of Ukraine's territorial integrity. As Secretary Tillerson 
has said, U.S. sanctions will stay in place until Russia meets its 
Minsk commitments. This means Russia must withdraw its forces from 
eastern Ukraine and restore control of the contested area to Ukrainian 
authorities, up to and including Ukraine's internationally recognized 
border with Russia. Separate Crimea-related U.S. sanctions will remain 
until Moscow returns the peninsula to Ukraine. Existing sanctions 
regimes, in coordination with G7 and EU sanctions, provide leverage to 
compel Moscow to fulfill its commitments. In addition, the United 
States and its allies must continue to provide all forms of support 
necessary for ensuring Ukrainian resiliency in the face of Russian 
pressure.
    Russia's proposal for a U.N. force in eastern Ukraine is a possible 
indication that Moscow is becoming more amenable to a peaceful 
resolution of the conflict and should be explored. However, as 
proposed, the measure would fall short of restoring Ukraine's 
territorial integrity. Secretary Tillerson has been clear that any 
resolution must provide a path to achieving the restoration of 
Ukraine's territorial integrity and the safety and security for all its 
citizens, regardless of language, ethnicity, or religion. As such, any 
U.N. force would have to have a broad mandate for peace and security 
throughout the entire area of conflict, including international 
supervision of the Ukrainian side of the Russia-Ukraine border, to 
avoid deepening or institutionalizing the externally imposed divisions 
inside Ukraine.September 19, 2017

    Question 3. What are the administration's plans for continuing to 
reassure allies and partners and to deter Russian aggressive activity 
in Europe?

    Answer. Russia threatens U.S. allies and partners both militarily 
and through an aggressive, coordinated campaign to undermine Western 
democratic institutions. Russia has consistently demonstrated a 
willingness to employ active measures of various forms including hybrid 
warfare, disinformation campaigns, and malign influence activities. The 
United States should continue to work closely with its allies and 
partners to enhance collective resilience against this full spectrum of 
threats.
    The administration has made a priority of strengthening the 
European Defense Initiative (EDI). This includes the $4.8 billion 
requested for FY 2018, which provides funding to increase U.S. presence 
across Europe, expand U.S. participation in exercises and training 
activities with NATO Allies and partners, enhance prepositioning of 
U.S. military equipment in Europe, improve infrastructure at military 
installations, and provide assistance to build the capacity of our 
allies and partners to defend themselves and enable their full 
participation as operational partners in responding to crises.
    NATO will continue to prepare for, deter and defend against attacks 
that employ chemical, biological, radiological, or nuclear material; to 
invest in robust, flexible, and interoperable military capabilities; 
and to protect our military supply chains and work to address, as 
appropriate, existing dependencies on Russian-sourced legacy military 
equipment through national efforts and multinational cooperation.
    The effects of Russian pressure continue to be greatest in Ukraine 
and Georgia, where Russia undermines the sovereignty and territorial 
integrity of these neighbors. In response to Russian aggression in 
Ukraine, the Departments of State and Defense have committed over $750 
million in training and equipment to help Ukraine defend its 
sovereignty and territorial integrity. The Balkans are also 
increasingly a target of Russian malign influence. It is important our 
assistance seek to deter Russian aggression as well as encourage 
reforms in these countries that eliminate fraud and abuse and reorient 
their economies away from Russian economic pressure.
    If confirmed as the Assistant Secretary for the Bureau of European 
and Eurasian Affairs, I will treat the need to reassure allies as one 
of my highest priorities, and will press these core U.S. national 
security interests at all levels within the Russian Government.

    Question 4. European leaders think that the JCPOA has significantly 
increased European and Middle Eastern security and have talked about 
trying to continue the Iran deal even if the U.S. pulls out. But 
European leaders have made clear that in such a scenario, Europe would 
actually give Iran more economic and diplomatic concessions to make up 
for the U.S. ending sanctions relief. How would it be in the U.S. 
interest to see Iran actually get more concessions out of Europe to 
stay in the JCPOA because the U.S. has begun to pull out?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our 
European partners.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial. If confirmed, it will be one of my highest 
priorities to ensure that we closely coordinate with our European 
partners and the European Union to ensure the effectiveness of any 
measures to prevent Iran from obtaining a nuclear weapon and to combat 
Iran's malign activities more broadly, including its ballistic missile 
program and support for terrorism.

    Question 5. One of your early tasks, if you are confirmed, will be 
to rally European support for the new Russia sanctions law that this 
Congress passed in late July. How do you expect to rally Europe in 
favor of more economic pressure on Russia at the same time that the 
Trump administration is discussing ending U.S. participation in the 
JCPOA and increasing sanctions on Iran? 

    Answer. I am aware many of our European allies have reservations 
about the new sanctions law, and if confirmed, I will be committed to 
working closely with them to maintain unity on Russia sanctions and 
their implementation. The U.S. Government has employed a collaborative 
and consultative approach on sanctions, and I will continue to seek 
feedback from our allies, who have been steadfast partners on Russia 
sanctions.
    My goal is to ensure these sanctions support our important, common 
work in resolving the conflict in Ukraine, restoring control of Crimea 
to Ukraine, and preventing future meddling by Russia in foreign 
elections--while also remaining vigilant against unintended 
consequences for our partners. I will likewise remain mindful of our 
many foreign policy priorities related to Europe as we implement these 
sanctions, including our commitment to promoting European energy 
security. Close coordination with our allies is crucial to enabling the 
sanctions to achieve their ultimate goal: imposing costs on Russia, 
sufficient to change the Russian Government's behavior.

    Question 6. I understand that Trump administration is concerned 
about Iran's ability to expand its nuclear program after the first 10 
years of the JCPOA, when the JCPOA's strictest limits begin to expire. 
But why should we risk alienating our allies by trying to beach the 
deal over that issue now, rather than waiting until closer to the end 
of the JCPOA and seeing then if we need to re-negotiate terms to 
address Iran's potential threat? Wouldn't it make more sense to keep 
the deal in place now and address concerns about the out years in the 
future, if Iran continues to be a malign actor a decade from now?

    Answer. The administration is currently conducting a review of the 
JCPOA and its broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our 
European partners.
    Secretary Tillerson has expressed particular concern about the 
provisions of the JCPOA under which certain restrictions on Iran's 
nuclear program progressively expire over time. It is important the 
United States, working closely with its partners, begins to discuss 
these concerns so they can be addressed well before these restrictions 
begin to cease.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial, and if confirmed, I will work closely with 
our European partners on these issues.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to A. Wess Mitchell by Senator Jeffery A. Merkley

    Question 1. Despite the fact that the United States, the 
International Atomic Energy Agency (IAEA), and our European 
counterparts all certify that Iran is in compliance with the nuclear 
deal, it appears the Trump administration is looking for a way out. 
This would pose a threat to the United States and regional security, in 
addition to undermining U.S. credibility and influence on the world 
stage. If the United States abandons our European allies on this issue, 
do you believe the Europeans will back up the United Sates on other 
grave international security issues?

    Answer. The administration is currently conducting a review of the 
JCPOA and its broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our 
European partners.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial. Europe remains key to addressing any 
number of other pressing international issues, including combatting 
terrorism and addressing the threat from North Korea. Our European 
partners want to work with us to address these challenges, and if 
confirmed, I will focus on ensuring the United States and Europe remain 
in lockstep on these issues.

    Question 2. European leaders think that the Joint Comprehensive 
Plan of Action (JCPOA) has significantly increased European and Middle 
Eastern security and have talked about trying to continue the Iran deal 
even if the United States pulls out. But European leaders have also 
made clear that in such a scenario, Europe would give Iran more 
economic and diplomatic concessions to make up for the United States 
ending sanctions relief. How would it be in the U.S. interest to see 
Iran get more concessions out of Europe to stay in the JCPOA because 
the U.S. has begun to pull out?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our 
European partners.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial. If confirmed, it will be one of my highest 
priorities to ensure that we closely coordinate with our European 
partners and the European Union to ensure the effectiveness of any 
measures to prevent Iran from obtaining a nuclear weapon and to combat 
Iran's malign activities more broadly, including its ballistic missile 
program and support for terrorism.

    Question 3. Russia's hybrid warfare encompasses a range of actions 
from propaganda and misinformation; to coercive economic measures; 
cyberattacks; and corruption. You have written that Russia tests 
alliances within the West by destabilizing small- and medium-size 
American allies on the periphery. One tool of deterrence is to ensure 
that European countries have strong and democratic institutions, strong 
rule of law, and are accountable to their citizens. How will you ensure 
that we are clear to allies and partners that they are expected to live 
up to their commitments on democratic governance and anti-corruption? 
How will you support these efforts in countries that are more 
vulnerable?

    Answer. Russia uses a constellation of approaches, overt and 
covert, to influence the policies of other governments and undermine 
domestic stability in Europe. Russia seeks to weaken European unity and 
erode faith in democratic institutions. A Europe whole, free, and at 
peace is in the interests of the United States. Efforts to disrupt 
democratic processes and weaken unity directly and negatively affect 
U.S. interests and security, while institutionalized respect for human 
rights, good governance, and rule of law contributes to long-term 
stability. By promoting our shared democratic values, and by holding 
our European partners accountable to their commitments and the rule of 
law, the United States strengthens our partners' capabilities to 
mitigate vulnerabilities to malign influences and counter threats to 
their security and sovereignty. The approach to this must be 
comprehensive and whole-of-government, and the Department of State has 
a critical role to play in addressing this threat.
    If confirmed, I will prioritize efforts to build the resilience of 
our European partners against Russia's efforts to undermine these 
democratic processes, including through exchanges of information and 
best practices, as well as programming for European publics. We will 
continue ongoing assistance efforts and engagements that seek to build 
and reinforce the rule of law, support democratic institutions, promote 
human rights, and drive economic development in vulnerable countries in 
Europe.

    Question 4. As a Central Europe expert, how will you address 
concerns about the spread of ``illiberal democratic'' politics that 
threaten the foundation of shared values that form the basis of our 
post-Cold War relationships with Europe?

    Answer. Since the end of the Cold War, the United States has led 
international efforts to strengthen democratic and free-market 
institutions and defense capabilities in Central Europe, and the region 
as a whole has made great strides. The United States relies on our 
allies to be strong inside and out, with strong democratic 
institutions, economies, and defense capabilities. As the President, 
Vice President, and Secretary of State have made clear, we expect our 
allies to meet their commitments. This means upholding the values 
enshrined in the Washington Treaty of democracy, individual liberty, 
and the rule of law, and spending at least two percent of GDP on 
defense. If confirmed, I will express our concerns when our allies fall 
short of their commitments, whether on defense spending or threats to 
rule of law and democratic institutions.
    The United States raises concerns with allies privately and 
publicly. Divided societies are more likely to be targeted by malign 
influence, and strengthening frontier states must be a priority in 
Europe. If confirmed, I will express concerns about measures in any 
NATO ally that weaken the separation of powers or any other component 
of a sound constitutional order. I will reinforce the importance the 
United States places on media freedom and a level playing field for 
U.S. companies abroad. At the same time, I will work to strengthen 
bilateral ties, interpersonal relationships and cooperation in the 
security, energy and other realms that advance U.S. interests.
    If confirmed, I will also seek ways, in partnership with others, to 
support civil society, civic education, and independent media. The 
region's transformation still requires U.S. attention and commitment if 
democratic gains are to be sustained. If confirmed, I will continue to 
stress the importance of strong democratic institutions in ongoing 
efforts to build and maintain prosperous economies, attract investment 
and resist malign influences.

    Question 5. In many parts of the region you would cover as 
Assistant Secretary the situation facing lesbian, gay, bisexual, 
transgender and queer (LGBTQ) people can be extremely challenging. They 
often face violence, government crackdowns, and even "anti-propaganda" 
laws that criminalize any discussion of homosexuality. What specific 
steps will you take to advance LGBTQ rights with your European 
counterparts?

    Answer. The Department of State remains committed to protecting and 
promoting the human rights of all persons, including the LGBTQ 
community. Democracy and stability are most secure when all people, 
including the most vulnerable, live freely without fear of violence or 
discrimination. If confirmed, I will continue the Department's special 
focus on the protection of vulnerable groups, including religious and 
ethnic minorities, persons with disabilities, survivors of gender-based 
violence, and LGBTQ persons.
    In June, Secretary Tillerson issued a statement emphasizing that 
violence and discrimination against any vulnerable group undermines 
collective security and American values. U.S. Embassies--including 
those in hostile environments--continue to take steps to protect the 
human rights of LGBTQ persons. If confirmed, I will continue to speak 
out in support of human rights, including those of LGBTQ persons.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to A. Wess Mitchell by Senator Cory Booker

    Question 1. The administration seems to be signaling that it may 
not certify Iranian compliance with the Joint Comprehensive Plan of 
Action. The President has on numerous occasions indicated that he would 
want a better deal, which is also what U.N. Ambassador Nicki Haley 
seemed to indicate in a recent speech at the American Enterprise 
Institute.
    But the only reason we were able so successfully build pressure on 
Iran was through a unified international response that led to unified 
sanctions regime that isolated Iran. It is quite apparent from both 
public statements and private discussions that our European partners, 
who were our closest allies in negotiating the JCPOA, do not support 
walking away and renegotiating.

   How exactly does the administration plan to negotiate a better deal 
        without international unity and a leaky sanctions regime?
   How does the administration plan to build consensus in Europe where 
        unanimity amongst all of the EU countries is needed to impose 
        certain EU-wide sanctions?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our 
European partners.
    priorities to ensure we closely coordinate with our European 
partners and the European Union to ensure the effectiveness of any 
measures to prevent Iran from obtaining a nuclear weapon and to combat 
Iran's malign activities more broadly, including its ballistic missile 
program and support for terrorism.

    Question 2. At his confirmation hearing, Secretary Tillerson 
stated, ``We must also be clear-eyed about our relationship with 
Russia. Russia today poses a danger. But it is not unpredictable in 
advancing its own interest. It has invaded the Ukraine, including the 
taking of Crimea, and supported Syrian forces that brutally violates 
the laws of war. Our NATO allies are right to be alarmed at a resurgent 
Russia.''

   If confirmed, what do you intend to do to reassure our NATO allies 
        regarding Russia?

    Answer. NATO's unity and U.S. leadership are both critical to an 
effective deterrent against aggression. In the face of continued 
Russian aggression in Ukraine and provocative behavior elsewhere, we 
are taking prudent, concrete measures to support the security of NATO 
Allies. The U.S. and NATO posture in the region is defensive, 
proportionate, and in line with international commitments. It 
represents a significant commitment by Allies and is a tangible 
reminder that an attack on one is an attack on all.
    It is important that the U.S and our NATO Allies continually review 
our military posture and military activities and exercises in Europe. I 
am committed to working with Allies to ensure our posture is capable of 
meeting the full range of threats we face today.
    One of the steps the administration has taken to bolster our 
military presence in Europe is the European Defense Initiative (EDI), 
which includes $4.8 billion requested for FY 2018. EDI provides funding 
to increase U.S. presence across Europe, expand U.S. participation in 
exercises and training activities with NATO Allies and partners, 
enhance prepositioning of U.S. military equipment in Europe, improve 
infrastructure at military installations, and provide assistance to 
build the capacity of our allies and partners to defend themselves and 
enable their full participation as operational partners in responding 
to crises.
    As part of Operation Atlantic Resolve (OAR)--the United States' 
contribution to the Alliance's persistent, rotational air, land, and 
sea presence in NATO's East--the U.S. has also deployed a rotational 
armored brigade combat team (ABCT) to European soil to concretely 
demonstrate action to back up our commitments.
    If confirmed, I will continue to reaffirm the unshakeable U.S. 
commitment to Article 5 of the NATO Treaty, while calling upon all 
Allies to fulfill their commitments on defense spending and 
capabilities so that we can together meet all future threats 
effectively.

    Question 3. According to the figures I have seen, the European NATO 
allies have approximately 5,200 troops in Afghanistan. In the 
administration's new strategy, what role do you see for Europe in 
stabilizing Afghanistan going forward?

    Answer. Non-U.S. NATO troops play a crucial role in Afghanistan. 
Through troop contributions, security assistance, and development 
assistance, our European Allies and partners have been essential in 
achieving the progress we've seen since 2001. Europeans are not only 
contributing forces to the NATO-led Resolute Support Mission (RSM), but 
they also pledged in 2016 at the Warsaw Summit to give approximately 
$900 million annually to help financially sustain the Afghan National 
Defense and Security Forces (ANDSF) through 2020. Europeans also give a 
substantial amount of development assistance to Afghanistan. In October 
2016, our European Allies pledged approximately $5.5 billion at the 
Brussels Conference on Afghanistan to support Afghanistan's development 
through 2020.
    The President's new South Asia strategy will give our Allies and 
partners more predicability in understanding U.S. planning in 
Afghanistan. With this new strategy, the administration will shift from 
a time-based drawdown plan to a conditions-based drawdown plan. For too 
long, slow decision-making by the U.S. Government has forced Allies to 
scramble to adjust their troop contributions to Afghanistan to align 
with U.S. plans. Giving Allies and partners more predictability on U.S. 
plans will help guide their own planning. Our Allies have responded 
positively to this change.
    The United States will continue to ask its European Allies to 
contribute forces for RSM and to help close critical mission 
shortfalls. Allies will be asked to continue and enhance their security 
presence and development assistance to Afghanistan. The administration 
is currently finalizing the details of these requests. If confirmed, I 
will work closely with Ambassador Hutchison and our Allies to ensure 
that commitments at the Warsaw Summit and Brussels Conference are met, 
and that NATO contributes robustly to the success of the new U.S. 
strategy.



                               __________





                              NOMINATIONS

                              ----------                              


                  WEDNESDAY, SEPTEMBER 27, 2017 (a.m.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:55 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Cory Gardner, 
presiding.
    Present: Senators Gardner [presiding], Risch, Markey, 
Murphy, and Kaine.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. This hearing will come to order.
    Let me welcome you all to today's Senate Foreign Relations 
hearing for nominations.
    I apologize for being late. I was introducing a fellow 
Coloradan to head the National Institute of Standards and 
Technology in Boulder, Colorado right before this committee 
hearing. So thank you for the indulgence and I apologize for 
being late.
    The nations of Vietnam and Timor-Leste are important 
partners for the U.S. in the Asia-Pacific region. Since the 
establishment of diplomatic ties in 1995, Vietnam and the 
United States have enjoyed a robust and fast-growing 
relationship. The United States is now Vietnam's second largest 
bilateral trading partner. Common security challenges in the 
region have allowed for steady growth of our security 
partnership. President Trump and Prime Minister Nguyen 
reaffirmed and committed to strengthen these ties during the 
Prime Minister's visit to Washington on May 31st. Vietnam will 
host the 2017 Asia-Pacific Economic Cooperation, APEC, leaders 
summit in November, a momentous occasion for the country.
    The White House has announced that President Trump plans to 
attend the APEC summit, which will be a critical show of 
leadership from the United States. I sincerely hope that the 
President's trip will go as planned.
    Timor-Leste is one of the youngest nations in the world, 
having gained its independence only in 2002. It is an emerging 
democracy, and in 2017, they held presidential and 
parliamentary elections that were widely recognized as free and 
fair and encouraging development.
    It is my hope that the nominees before us today, if 
confirmed, could advance these partnerships to benefit U.S. 
national and economic security.
    And with that, I will turn it over to my colleague and 
ranking member, Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. Thank 
you for having this hearing.
    Today we are considering the nominations of two outstanding 
diplomats to represent the United States in Timor-Leste and 
Vietnam. Ms. Fitzpatrick and Mr. Kritenbrink, we thank you and 
your families for your years of service representing America 
abroad as members of the Foreign Service.
    If confirmed, you will embark on diplomatic missions to two 
very important emerging countries. In 2002, Timor-Leste became 
the first new sovereign state of the 21st century and joined 
the United Nations and the community of Portuguese language 
countries. Today it seeks full economic integration into the 
Southeast Asia region as it continues its economic and 
political growth. It is very important that the United States 
continue to support it on this path.
    The Vietnam-United States relationship has a difficult 
history, as we are reminded this week by Ken Burns' documentary 
broadcast on PBS. But remarkably, just over 40 years after the 
end of the Vietnam War, we have not only normalized relations, 
but have developed an expanding relationship that includes 
economic, political, and security cooperation. It is critical 
that we continue to build this relationship for the mutual 
benefit of both the American and Vietnamese people. At the same 
time, we must continue to strongly urge the Vietnam Government 
to meet international standards with respect to human rights 
and democratic governance.
    I have every confidence that, if confirmed, each of you 
will perform your mission with distinction. Please do not 
question whether or not we appreciate the service that career 
diplomats play in the representation of our country.
    We thank you, Mr. Chairman, very much and I yield back the 
balance of my time.
    Senator Gardner. Thank you, Senator Markey.
    Our first nominee is Mr. Daniel Kritenbrink of Virginia. 
Mr. Kritenbrink is a career member of the Senior Foreign 
Service Class of Minister-Counselor and has served as an 
American diplomat since 1994. He currently serves as the Senior 
Advisor at the State Department. Mr. Kritenbrink has previously 
served as Deputy Chief of Mission in Beijing and has also 
served as a Senior Director at the National Security Council. 
Thank you, you and your family, for your willingness to serve, 
and we will begin with your testimony first.
    And our next nominee, who we will turn to after that, of 
course, is Kathleen Fitzpatrick of the District of Columbia. 
Ms. Fitzpatrick is also a Career Member of the Senior Foreign 
Service, Class of Minister-Counselor, and has served as an 
American diplomat since 1983. She currently serves as the 
Principal Deputy Assistant Secretary in the Bureau of 
Intelligence and Research at the Department of State. Thank 
you, you and your family, for your willingness to serve.
    Mr. Kritenbrink, we will begin with you.

   STATEMENT OF DANIEL J. KRITENBRINK, OF VIRGINIA, A CAREER 
    MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-
 COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY 
 OF THE UNITED STATES OF AMERICA TO THE SOCIALIST REPUBLIC OF 
                            VIETNAM

    Mr. Kritenbrink. Good morning. Thank you, Chairman Gardner, 
Ranking Member Markey, and members of the committee, for the 
honor of allowing me to testify before you and for considering 
my nomination by the President to be the next United States 
Ambassador to Vietnam. I am deeply grateful for the confidence 
that President Trump and Secretary Tillerson have shown in me.
    I would also like to thank my wife Nami and my children, 
Mia and Joseph, who are sitting right behind me, for joining me 
today. Their love has been a constant source of support and 
encouragement, without which I would not be here.
    It has always been my dream to serve my country, and I have 
been privileged to do so as a Foreign Service officer since 
1994. I have spent most of my career in Asia. I know how 
critical this dynamic region is to U.S. interests. Few 
countries highlight the impact of consistent, creative, U.S. 
engagement more than Vietnam. That is something I have 
witnessed firsthand, including during three official trips to 
Vietnam and during my overseeing the negotiation of two 
bilateral joint statements with Vietnam in 2015 and 2016.
    Over the last 40 years, the U.S.-Vietnam relationship has 
undergone a profound transformation. Thanks to the efforts of 
successive U.S. administrations, the Congress, veterans, the 
business community, and members from among the more than 2 
million Vietnamese Americans, Vietnam has become a valuable and 
strategic partner. If confirmed, I look forward to working 
closely with the Senate to advance American interests and build 
upon the already strong ties between the United States and 
Vietnam, including in the following areas.
    First, security. Our two countries have expanded security 
cooperation, including U.S. support to strengthen Vietnam's 
maritime security capabilities, as part of our shared interest 
in upholding international law and resisting coercion in the 
South China Sea. We are also helping Vietnam build capacity to 
become a more active contributor on the regional and global 
stage. We are encouraging Vietnam to continues its active role 
within ASEAN, and we support Vietnam's planned contributions to 
UN peacekeeping missions. The United States and Vietnam have 
also increased collaboration on preventing North Korea from 
threatening the region through its nuclear and missile 
programs. If confirmed, I will continue this vital work.
    Second, trade and investment. Bilateral trade with Vietnam 
has grown exponentially, increasing from $451 million in 1995 
to $52 billion in 2016. Last year, Vietnam was America's 
fastest growing export market. U.S. investment in Vietnam has 
grown to $1.5 billion. Yet challenges obviously remain. If 
confirmed, I will work to boost U.S. exports and expand trade 
and investment ties. I will also advocate for a level playing 
field for U.S. companies and investors.
    Third, human rights. There has been some progress in 
Vietnam on human rights and religious freedom, due in no small 
part to congressional engagement and a productive bilateral 
dialogue on these issues. However, the trend over the past 18 
months of increased arrests, convictions, and harsh sentences 
of activists is deeply troubling. If confirmed, I will continue 
to advocate for human rights and religious freedom and for the 
need to make progress in combating trafficking in persons. I 
will stress to Vietnam's leadership that progress on these 
issues is critical to enabling our partnership and Vietnam 
itself to reach its fullest potential.
    Fourth, people-to-people ties. The bonds between the 
American and Vietnamese people are strong and growing. More 
than 21,000 Vietnamese now study in the United States. Over 
80,000 Vietnamese visited the United States last year, and over 
half a million Americans visited Vietnam. The new Fulbright 
University Vietnam and the Peace Corps program in Vietnam will 
serve as the bridge to our brighter future together.
    Fifth, humanitarian and war legacy issues. Providing the 
fullest possible accounting for U.S. personnel missing from the 
Vietnam War era remains our solemn obligation, and we must not 
stop until that work is complete. Since 1993, the United States 
has contributed over $103 million to mitigate threats posed by 
unexploded ordnance. We have invested nearly $115 million in 
the remediation of dioxin contamination in Danang. Our 
cooperation on these issues continues to build a foundation of 
trust to expand our relationship.
    And this is just the beginning. Vietnam is an increasingly 
important partner on other regional and global challenges, 
including pandemic disease, wildlife and drug trafficking, and 
transnational crime.
    If confirmed, I will work with our exceptional U.S. mission 
staff to strengthen our partnerships with Vietnam and the 
Vietnamese people. I will also make the safety and welfare of 
mission personnel a top priority, including by ensuring they 
have appropriate facilities in Vietnam from which to do their 
important work. Our goal remains to advance American interests 
across the board and support the development of a strong, 
prosperous, and independent Vietnam that contributes to 
international security, engages in mutually beneficial trade, 
and respects human rights and the rule of law.
    Thank you again for considering my nomination. I look 
forward to your questions.
    [Mr. Kritenbrink's prepared statement follows:]


              Prepared Statement of Daniel J. Kritenbrink

    Thank you Chairman Gardner, Ranking Member Markey, and members of 
the committee for the honor of allowing me to testify before you, and 
for considering my nomination by the President to be the next United 
States Ambassador to Vietnam. I am deeply grateful for the confidence 
that President Trump and Secretary Tillerson have shown in me. I would 
also like to thank my wife Nami, and my children, Mia and Joseph, for 
joining me today. Their love has been a constant source of support and 
encouragement, without which I would not be here.
    If confirmed, I look forward to working closely with the Senate to 
advance American interests and build upon the already strong ties 
between the United States and Vietnam.
    It has always been my dream to serve my country, and I have been 
privileged to do so as a State Department Foreign Service Officer since 
1994. I have spent most of my career in Asia, including in a variety of 
leadership positions. I know how critical this dynamic region is to 
U.S. interests. Few countries highlight the impact of consistent, 
creative U.S. engagement in Asia more than Vietnam. That is something I 
witnessed firsthand during my previous work with the Vietnamese, 
including three official trips to Vietnam, and my overseeing the 
negotiation of two bilateral Joint Statements with Vietnam in 2015 and 
2016.
    Over the last 40 years, the U.S.-Vietnam relationship has undergone 
a profound transformation. Thanks to the efforts of successive U.S. 
administrations, the Congress, and others, such as veterans, the 
business community, and members from among the more than two million 
Vietnamese-Americans, Vietnam has become a valuable and strategic 
partner. If confirmed, I will work to continue developing the U.S.-
Vietnam relationship in support of a wide range of shared interests, 
including in the following areas.
    First, security. Our two countries have significantly expanded 
security cooperation, including through U.S. support to strengthen 
Vietnam's maritime security capabilities, as part of our shared 
interest in upholding international law and resisting coercion in the 
South China Sea, a region vital to our respective security and 
commercial interests as Asia-Pacific nations. We are also helping 
Vietnam build capacity to become a more responsible and active 
contributor on the regional and global stage. We are encouraging 
Vietnam to continue its active role within ASEAN, and we support 
Vietnam's planned contributions to U.N. peacekeeping missions. The 
United States and Vietnam have also increased collaboration on 
preventing North Korea from threatening the region through its nuclear 
and missile programs. If confirmed, I will continue this vital work.
    Second, trade and investment. Bilateral trade with Vietnam has 
grown exponentially, increasing from $451 million in 1995 to $52 
billion in 2016. Last year, Vietnam was America's fastest growing 
export market. U.S. investment in Vietnam has grown to $1.5 billion. 
Yet challenges obviously remain. If confirmed, I will work to boost 
U.S. exports and expand trade and investment ties. I will also advocate 
for a level playing field for U.S. companies and investors, including 
by urging Vietnam to improve labor and environmental standards, 
transparency for state-owned enterprises, and intellectual property 
protection, so that our two countries enjoy a strong trade relationship 
that is free and fair.
    Third, human rights. There has been some progress in Vietnam on 
human rights and religious freedom in recent years, due in no small 
part to Congressional engagement and a productive bilateral dialogue on 
these issues. However, the trend over the past 18 months of increased 
arrests, convictions, and harsh sentences of activists is deeply 
troubling. If confirmed, I will continue to advocate for human rights 
and religious freedom, and for the need to make further progress in 
combating trafficking in persons, while stressing to Vietnam's 
leadership that progress on these issues remains a top priority for the 
United States, and is critical to enabling our partnership--and Vietnam 
itself--to reach its fullest potential.
    Fourth, people-to-people ties. The bonds between the American and 
Vietnamese people are strong and growing. More than 21,000 Vietnamese 
now study in the United States, placing Vietnam in the top six source 
countries for foreign students. These students not only build mutual 
understanding, but they also contributed nearly $700 million to the 
U.S. economy in 2015. Over 80,000 Vietnamese visited the United States 
last year, supporting American jobs in every state, and over half a 
million Americans visited Vietnam. The new Fulbright University Vietnam 
and the Peace Corps program in Vietnam will further deepen these ties 
that will serve as the bridge to our brighter future together.
    Fifth, humanitarian and war legacy issues. Providing the fullest 
possible accounting for U.S. personnel missing from the Vietnam War era 
remains our solemn obligation, and we must not stop until that work is 
complete. Vietnam has provided critical assistance to those efforts for 
decades. Since 1993, the United States has contributed over $103 
million to mitigate lingering threats posed by unexploded ordnance. We 
have invested nearly $115 million in the remediation of dioxin 
contamination in Danang, which is scheduled to be completed later this 
year, and we have committed to doing more. Our cooperation on these 
issues continues to build a foundation of trust to expand our 
relationship.
    This is just the beginning. In addition to the many issues I have 
mentioned, Vietnam is an increasingly important partner on other 
regional and global challenges, including pandemic disease, wildlife 
and drug trafficking, and transnational crime. With a booming economy 
and a young and energetic population that holds overwhelmingly positive 
views of the United States, Vietnam has the potential to emerge as one 
of our strongest partners in the Asia-Pacific.
    If confirmed, I will work with our exceptional U.S. Mission staff 
in Hanoi and in Ho Chi Minh City to strengthen our partnership with 
Vietnam and the Vietnamese people. I will also make the safety and 
welfare of Mission personnel a top priority, including by ensuring they 
have appropriate facilities in Vietnam from which to do their important 
work. Our goal remains to advance American interests across the board 
and support the development of a strong, prosperous, and independent 
Vietnam that contributes to international security, engages in mutually 
beneficial trade, and respects human rights and the rule of law.
    Thank you again for considering my nomination. I look forward to 
your questions.


    Senator Gardner. Thank you.
    Ms. Fitzpatrick?

   STATEMENT OF KATHLEEN M. FITZPATRICK, OF THE DISTRICT OF 
COLUMBIA, A CAREER MEMBER OF THE SENIOR FOREIGN SERVICE, CLASS 
   OF MINISTER-COUNSELOR, TO BE AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
               DEMOCRATIC REPUBLIC OF TIMOR-LESTE

    Ms. Fitzpatrick. Mr. Chairman, Ranking Member Markey, 
members of the committee, thank you for the opportunity to 
appear before you today as the President's nominee to become 
the next U.S. Ambassador to the Democratic Republic of Timor-
Leste. I am deeply grateful to the President and Secretary 
Tillerson for placing their confidence in me to serve the 
United States in Timor-Leste, a young and promising democracy 
and friend of the United States.
    Mr. Chairman, if I may, I would like to welcome my family 
whose support and encouragement has brought me where I am 
today. With me, is my husband, a retired Foreign Service 
officer, Richard Figueroa. I would also like to acknowledge our 
wonderful daughters, Elizabeth and Alexandra Figueroa. 
Elizabeth is here today. Alexandra is away at school. Also with 
me are my brothers, Michael and Tom Fitzpatrick, and my sister-
in-law, Terry Fitzpatrick.
    If I may, Mr. Chairman, both of my parents passed away 6 
years ago, but they would have been so proud of this moment. 
And if I note, my mother's love is always still with us and my 
father is a hero in our family. He is a World War II veteran, 
navigator on B-17's. His plane was shot down coming back from a 
mission. He was a POW for a year and a half. But his service to 
country and devotion to family really is a shining example to 
all of us.
    If I also may take a moment to send our love to the 
Figueroa side of the family who are in Puerto Rico and St. 
Thomas, with gratitude that they are safe as they face the 
aftermath of the hurricane.
    Mr. Chairman, Timor-Leste has shown that it is possible for 
a new country to emerge from years of conflict as a nation 
succeeding on the foundations of democratic principles.
    Timor-Leste and the United States share a friendship based 
on those common values, and our bilateral relations are 
anchored in mutual respect and admiration.
    As Secretary Tillerson said in a message on Timor-Leste's 
independence day, 15 years of independence is a remarkable 
milestone, reflecting the resolve and the commitment of the 
Timorese people to build a new democracy based on respect for 
human rights and the rule of law. We are committed to deepening 
ties between the American and Timorese people in the years to 
come.
    Mr. Chairman, if confirmed, I will work to fulfill our 
commitment to deepen ties with a country that has earned our 
respect and set its own path as a democratic and resilient 
state. And this has been exemplified in the last several months 
as Timor-Leste held peaceful, credible, and fair presidential 
and parliamentary elections, the first without UN peacekeepers.
    As a democratic country in a strategic neighborhood, Timor-
Leste is an increasingly important voice for human rights and 
democracy regionally and globally. It is a founding member of 
the G-7 Plus fragile states group, sharing best practices on 
how societies rebuild after conflict. Timor-Leste has also been 
an important voice on regional issues, including calling for 
North Korea to abide by UN Security Council resolutions, which 
they did at the ASEAN regional forum in August when Timor-Leste 
made a statement in that regard.
    Timor-Leste has also applied to join ASEAN and the World 
Trade Organization.
    Our cooperation, whether through USAID, our military-to-
military engagement, our Peace Corps volunteers, or a new 
Millennium Challenge Corporation threshold program, will build 
capacity for stronger democratic institutions, inclusive 
economic growth, and better security. We have supported Timor-
Leste in diversifying its economy, bolstering the country's 
ability to work with the United States on issues of common 
concern. For example, a coffee cooperative, established and 
developed with U.S. assistance, now provides sustainable income 
for 22,000 of its members.
    Our growing security partnership with Timor-Leste builds 
capacity to respond to natural disasters and humanitarian 
crises, strengthens maritime security, and it deepens the 
professionalism of the Timorese military and law enforcement.
    Mr. Chairman, if confirmed, I will work with our team in 
Dili and Washington, our Timorese hosts, and other 
international partners to further strengthen our cooperation 
with Timor-Leste and to advance U.S. interests. I will also 
work to deepen our outreach to the Timorese people, 
particularly the large youth population, so that our future 
ties are built on a strong foundation.
    If confirmed, I look forward to working with this committee 
and other Members of Congress as we continue to promote our 
interests in Timor-Leste and the broader East Asia and Pacific 
region.
    Thank you, Mr. Chairman, for this opportunity to appear 
before you today, and I am honored to take your questions.
    [Ms. Fitzpatrick's prepared statement follows:]


             Prepared Statement of Kathleen M. Fitzpatrick

    Mr. Chairman, Ranking Member Markey, members of the committee, 
thank you for the opportunity to appear before you today as the 
President's nominee to become the next U.S. Ambassador to the 
Democratic Republic of Timor-Leste. I am deeply grateful to the 
President and Secretary Tillerson for placing their confidence in me to 
serve the United States in Timor-Leste, a young and promising democracy 
and friend of the United States.
    I would like to introduce my family, whose support and 
encouragement has brought me to where I am today. With me today is my 
husband, retired Foreign Service Officer Richard Figueroa. I would also 
like to acknowledge our wonderful daughters, Elizabeth and Alexandra 
Figueroa; Elizabeth is here today, while Alexandra is away at college. 
My brothers Michael and Tom Fitzpatrick and sister-in-law Terry have 
also joined us today. Both of my parents passed away six years ago but 
they would have been very proud of this moment. My Mom's love still 
surrounds us. And, my father, a WWII veteran--who flew as a navigator 
on B-17s, and when his plane was shot down, was a POW for a year and a 
half--serves as a shining example of service to country and devotion to 
family. I would also like to send my love to the Figueroa side of our 
family who live in Puerto Rico and St. Thomas, with gratitude that they 
are safe as they endure the aftermath of Hurricane Maria. Finally Mr. 
Chairman, I also thank my many mentors and colleagues who have 
supported me throughout my career.
    Mr. Chairman, Timor-Leste has shown that it is possible for a new 
country to emerge from years of conflict as a nation succeeding on the 
foundations of democratic principles and respect for human rights.
    Timor-Leste and the United States share a friendship based on those 
common values, and our bilateral relations are anchored in mutual 
respect and admiration. We respect the tremendous struggles Timor-Leste 
has endured to become the newest country in Asia, and we commend the 
vibrant and developing democracy Timor-Leste has built to respond to 
the aspirations of its diverse people. As President Trump said in a 
message on Timor-Leste's 15th independence day this year, the progress 
of this young country reflects the national spirit and determination of 
the Timorese people.
    Secretary Tillerson echoed the President's comments in his own 
message when he said: ``Fifteen years of independence is a remarkable 
milestone, reflecting the resolve and commitment of the Timorese people 
to build a new democracy based on respect for human rights and the rule 
of law. We are committed to deepening ties between the American and 
Timorese peoples in the years to come.'' Mr. Chairman, if confirmed, I 
will work to fulfill our commitment to deepen ties with a country that 
has earned our respect, a country that has set its own path--symbolized 
by the star the Timorese chose to adorn their nation's flag--as a 
democratic, resilient and stable state.
    Timor-Leste has held peaceful, credible and fair presidential and 
parliamentary elections in 2017, the first without U.N. peacekeepers, 
reflecting the diversity of emerging political views, especially among 
young people voting for the first time, and with an impressively high 
turnout.
    As a young country in a large and strategic neighborhood, Timor-
Leste faces economic, security, and environmental challenges. Timor-
Leste is actively addressing some of these concerns. Its leaders are 
working with Australia in a conciliation process to resolve peacefully 
a maritime boundary dispute in accordance with international law using 
a mechanism that could be a model for other countries seeking to solve 
such differences. It has applied to join ASEAN and the World Trade 
Organization. Timor-Leste is an increasingly important voice for human 
rights and democracy globally. It is a founding member of the g7+ 
fragile states group and shares experiences and best practices on how 
societies rebuild after conflict. Timor-Leste has also been an 
important voice on regional issues of mutual concern, including calling 
for North Korea to abide by U.N. Security Council resolutions at the 
ASEAN Regional Forum in August.
    Our cooperation, whether through USAID, military-to-military 
engagement, Peace Corps, or a new Millennium Challenge Corporation 
Threshold Program, will build capacity for inclusive economic growth, 
maritime security, and stronger governance. Much of our collaboration 
assists Timor-Leste in diversifying its economy for more sustainable 
development, bolstering Timor-Leste's ability to work with the United 
States on issues of common concern. A coffee cooperative established 
and developed with USAID and USDA assistance, for example, now provides 
sustainable income and access to rural health clinics for its 22,000 
members.
    Our growing security partnership with Timor-Leste builds capacity 
to respond to natural disasters and humanitarian crises, strengthens 
maritime security, and deepens the professionalism of the Timorese 
military. Our armed forces conduct regular bilateral exercises, and a 
rotating U.S. Navy Seabees detachment provides critical humanitarian 
assistance and infrastructure support to the Timorese people. To 
support Timor-Leste's efforts to strengthen rule of law, we also train 
Timorese law enforcement personnel at the regional International Law 
Enforcement Academy. We have also worked with Timor-Leste as it 
strengthens its ability to combat trafficking in persons.
    Mr. Chairman, if confirmed, I will work with our team in Dili and 
Washington, our Timorese hosts, and other international partners to 
further strengthen our bilateral and multilateral cooperation with 
Timor-Leste and advance U.S. interests there and in the region. I will 
also work to deepen our outreach to the Timorese people, particularly 
the large youth population, so that our future ties are built on a 
strong foundation.
    Mr. Chairman, during my Foreign Service career, I have proudly 
served the United States both in Washington and abroad. If confirmed, I 
will use my experience to guide our mission in Dili to strengthen our 
relationship with the region's newest nation. Over the years, members 
of the U.S. Congress have shown particular interest in Timor-Leste's 
development and success, having played an important role in the 
country's independence. If confirmed, I look forward to working with 
this committee and other members of Congress, whether here in 
Washington or in the region, as we continue to promote our interests in 
Timor-Leste and the broader East Asia and Pacific region.
    Thank you for this opportunity to appear before you today. I am 
honored to take your questions.


    Senator Gardner. Thank you both for your time and 
testimony. And congratulations again on your nominations, and 
to your families, again welcome to the Foreign Relations 
Committee.
    I will begin briefly with questions.
    Broadly speaking in Asia, we seem to have had over the past 
several decades policies that may reflect the 4-year or 8-year 
tenure of a presidency, but rarely do we have policies that 
last 10 or 20 years when it comes to an Asia strategy writ-
large.
    I have been developing legislation known as the Asia 
Reassurance Initiative Act, which would focus on three areas 
talking about economic opportunities and enhancing trade 
throughout Southeast Asia in particular, talking about the 
security challenges that we face, Asia-Pacific security 
initiative, counterterrorism activities, maritime capabilities, 
training opportunities. And then, of course, the third leg of 
the stool would be promoting U.S. values, human rights, 
democracy components.
    Both of you in the region, what do you think the most 
important sort of elements of the U.S.-Asia policy to be? Ms. 
Fitzpatrick?
    Ms. Fitzpatrick. Thank you, Mr. Chairman, for that question 
and for your commitment to the Asia-Pacific region.
    In that regard, Mr. Chairman, in a new democracy such as 
Timor-Leste, the newest country in Asia, we will continue--if 
confirmed, I will continue to build on our efforts to 
strengthen democratic institutions, to build sustainable 
development and economic diversification, as well as to further 
strengthen our very vibrant military-to-military engagement 
with Timor-Leste. So those would be my top priorities, as well 
as to advance our public diplomacy and our outreach to the 
Timorese people.
    Senator Gardner. Mr. Kritenbrink?
    Mr. Kritenbrink. Thank you, Mr. Chairman, for your question 
and also your commitment and support to our interests in the 
Asia-Pacific.
    I think you have summed it up quite well, Mr. Chairman. And 
when I look at the Asia-Pacific, I guess basically I would say 
we have an enduring national interest in a secure, open, and 
free Asia-Pacific, and I think those are the fundamental 
interests that animate our policies. And building on your 
comments, I would say in Vietnam, I think that means we 
continue to advance policies that support our common interests. 
We both share an interest in a peaceful, secure, stable Asia-
Pacific where differences are resolved peacefully in accordance 
with international law. If confirmed, I would work aggressively 
on those issues, similarly on the economic and trade side, and 
as you mentioned, Mr. Chairman, certainly our values have to 
remain central to our engagement with the region and with 
Vietnam in particular.
    Senator Gardner. Thank you to you both.
    Mr. Kritenbrink, we had an opportunity to talk about North 
Korea in the office. And of course, both of your opening 
statements referenced North Korea. Could you talk a little bit 
about your experience, that is, your background on North Korea 
but also your experience as it relates to working with Vietnam 
to further isolate the North Korean regime using Vietnam's 
leadership as a way to cut off trade and isolate further trade 
with North Korea?
    Mr. Kritenbrink. Thank you, Mr. Chairman.
    Certainly the issue of North Korea and the threat that its 
nuclear weapons and missile programs present to the region and 
to the world is a grave national security threat and perhaps 
the most serious national security threat the United States 
faces today. Under President Trump, the United States has made 
clear that we will not stand idly by in the face of this threat 
and that we will use all elements of American national power to 
combat this threat, together with our allies and partners in 
the region.
    I think particularly in the context of Vietnam, Mr. 
Chairman, I would say that as part of our global pressure 
campaign to, as you said, isolate North Korea, or restrict its 
sources of funding, we have had a very constructive and 
productive dialogue with Vietnam, and together we share an 
interest in curbing the threat posed by North Korea. And if 
confirmed, I would certainly advance that dialogue further and 
make it one of my top priorities.
    Senator Gardner. Thank you.
    The State Department's 2017 Trafficking in Persons, the TIP 
Report, ranked Vietnam as a tier 2 country. The report 
described challenges in Vietnam's implementation of some 
relatively new anti-trafficking laws, including challenges they 
have facing limited resources, interagency coordination, and 
victim referral systems.
    Do you think Vietnam deserved the tier 2 ranking for the 
seventh year in a row? And if confirmed, how would you engage 
the Government of Vietnam to address these ongoing anti-
trafficking challenges?
    Mr. Kritenbrink. Thank you, Mr. Chairman, for raising that 
issue.
    I think the issue of trafficking in persons or modern day 
slavery is a critically important issue, and it is with all 
countries in the region and around the world. And certainly, if 
confirmed, I would make it a top priority with Vietnam.
    I think the assessment that the U.S. Government has made in 
our Trafficking in Persons Report of tier 2 is accurate for 
Vietnam. In other words, I think Vietnam has demonstrated a 
real commitment to tackling this problem, recognizes the 
seriousness of it and the importance of it, but candidly 
speaking, they fall short of doing the things necessary to 
actually achieve those goals.
    I think you have outlined well some of the deficiencies 
regarding lack of interagency cooperation, lack of resources, 
lack of capacity, and a lack of convictions to date, as well as 
the delay in implementing their own domestic legislation 
related to trafficking in persons.
    If I were confirmed, Mr. Chairman, again I would make it a 
top priority. It would be a topic of frequent engagement both 
at my level and at more senior levels, and also I would 
continue to support the various U.S. assistance programs that 
are also designed to improve Vietnam's capabilities to tackle 
this challenge.
    Senator Gardner. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Just following up on the chairman's comments, Human Rights 
Watch has now said that Vietnam's human rights record remains 
dire in all areas. And in July, a Vietnamese court sentenced a 
blogger activist to 9 years in prison, followed by 5 years 
under house arrest, for spreading, quote, anti-state 
propaganda.
    So this question of human rights, this question of 
religious freedom is clearly something that is still a big part 
of the culture of Vietnam. So we thank you for the commitments 
that you have made to the chairman to be there as a voice for 
freedom in that country.
    Let me follow up. Vietnam has mounted a series of 
challenges to China's claims in the South China Sea. Vietnam 
has been critical of China's reclamation project and has 
challenged China's maritime claims as well. After the Chinese 
protested, Vietnam in June suspended a gas drilling project in 
its exclusive economic zone. The administration's wavering on a 
South China Sea policy has left Vietnam feeling alone.
    Mr. Kritenbrink, while the United States and Vietnam are 
not treaty allies, what more can we do to reassure Vietnam that 
we will continue to provide diplomatic support as they legally 
dispute China's territorial claims?
    Mr. Kritenbrink. Thank you, Senator, for that very 
important question.
    I do think that the issues in the South China Sea--the 
maritime issues in the South China Sea, the territorial 
disputes, and the behavior of various states in the region are 
a critical national interest of the United States, and our 
interests include preserving freedom of navigation and 
overflight, the peaceful resolution of disputes in accordance 
with international law, and also free, unfettered, and legal 
commerce.
    I think, Senator, the most effective approach that the 
United States can have engaging with Vietnam would be to 
continue diplomatically to engage with Vietnam to advance the 
interests that we share in common. Vietnam shares the same 
interests that we do in ensuring peace and stability and 
preserving the principles that I have just outlined in the 
South China Sea. They have stated repeatedly so publicly and 
privately.
    Secondly, Senator, I think it is in our interest to 
continue building the capacity of Vietnam's coast guard and 
other forces so that Vietnam has the ability to maintain domain 
awareness and advocate its own positions and claims. And I 
think through both our diplomatic engagement, I think our 
assistance to further Vietnam's own capacity, and then I think, 
Senator, by maintaining our constant presence, our regular and 
frequent freedom of navigation operations, we can best support 
Vietnam and other likeminded partners.
    Senator Markey. How much does Vietnam see the United States 
now as a counterbalance to China? Do you see that as an 
increasing and continuingly increasing part of our relationship 
with them?
    Mr. Kritenbrink. I think, Senator, that Vietnam maintains 
its own very complicated but important relationship with China. 
I think Vietnam, like most countries in the region, is looking 
for a diversified and balanced set of relationships in its 
foreign policy. And I think Vietnam and others in the region 
look to the United States for leadership, for leadership on 
critical maritime issues, for contributing to peace and 
stability, and also for promoting economic prosperity. I think 
the demand signals coming from our Vietnamese friends and other 
likeminded partners throughout the region are very strong.
    Senator Markey. Thank you.
    Ms. Fitzpatrick, Timor-Leste's first president and former 
Prime Minister Gusmao was in Massachusetts last week to discuss 
the challenges Timor-Leste faces with respect to achieving full 
sovereignty. One of the lingering issues he has sought to 
resolve is the maritime boundary between Timor-Leste and 
Australia. On September 1st, the Permanent Court of Arbitration 
brought Timor-Leste and Australia one step closer to a 
permanent agreement. Once this deal is concluded, it will 
require significant ongoing coordination and cooperation 
between Timor-Leste and Australia.
    How do you see the United States helping this process so 
that a final agreement can be reached and implemented?
    Ms. Fitzpatrick. Thank you, Senator.
    We do commend Timor-Leste and Australia for entering into 
the compulsory compliance mechanism under the UN Convention of 
Law of the Sea. We support international law and peaceful 
resolution of disputes, and we also were pleased that Timor-
Leste and Australia did announce that they had reached a core 
of an agreement.
    While we do not take positions on maritime boundary 
disputes, we do see this first use of this mechanism as a 
possible tool for other countries with similar issues. And if 
confirmed, Senator, I will continue to monitor the agreement 
and support efforts to comply and to adhere to international 
law and peaceful resolution of disputes.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    Senator Gardner. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of you for your nominations but 
also for your long service to the country. These are not easy 
positions. I think folks who do not do them think there is a 
lot of glamour involved, and occasionally that is the case. But 
there are a lot of moves sometimes to places you want to go and 
sometimes to places that are tough. Sometimes your family can 
be with you. Sometimes they cannot. I think the Nation does a 
good job of thanking those who are in military service. We have 
grown to be able to do that, and that is smart. And we do not 
often have the same expression of appreciation to the many 
other Americans who serve abroad and to their families. I am 
glad your families are here with you and I congratulate you.
    My colleagues have asked questions. I was interested in 
too. So as a member of the Armed Services Committee as well, I 
want to ask you about the mil-to-mil relationships with each 
country. One of the most powerful photos that I have ever seen 
in my political life was the docking of the USS John McCain in 
Danang Harbor in August of 2010 with the entire Vietnamese 
military brass there saluting, that sign of respect following a 
war that cost 60,000 American lives and somewhere between a 
million and a half and 3 million Vietnamese lives that we would 
back with a relationship that, while it has got its 
differences, is a thriving one, is powerful.
    And then the Timorese military and the United States Navy 
participated in an annual CARA exercise that is focused 
primarily on maritime issues, maritime training.
    That is the only question I am going to ask. If you could 
each talk a little bit about the mil-to-mil relationships and 
what you think you might be able to do if confirmed to enhance 
joint security between our nations.
    Mr. Kritenbrink. Senator Kaine, thank you so much for your 
question and thank you for your comments. They mean a great 
deal to me.
    I think that the U.S.-Vietnam mil-mil relationship has 
grown, together with the rest of the bilateral relationship. 
And as you mentioned, Senator, I think it is particularly 
gratifying to see that progress given our painful history.
    When I think of the bilateral mil-mil relationship, I think 
of the following three or four priorities.
    I think first would be related to the maritime domain, and 
I think the U.S. military continues to play an important role 
in helping the Vietnamese coast guard and military develop its 
own capabilities both to achieve maritime domain awareness and 
other capabilities.
    I would also add, Senator, that it was gratifying, indeed, 
to see the USS John McCain there, and I know over the last 
year, our two sides have announced they were working towards 
the visit of a U.S. aircraft carrier to Vietnam. And I think 
that would be an equally momentous event.
    And the work on maritime includes both training, provision 
of assistance, and the like, and I think that has to continue 
going forward.
    I think related to that, Senator, the U.S. military 
continues to play an important role engaging with the 
Vietnamese military to address legacy of war issues, whether 
that be the continued contamination by unexploded ordnance or 
remaining dioxin in the country. This is a U.S. government-wide 
effort, but certainly the Department of Defense is involved and 
plays a role there and then also I think benefits--our mil-mil 
relationship benefits a great deal from the work that we do 
there and the trust that we build as a result.
    And the final point that I would mention, Senator, would be 
the humanitarian work, the humanitarian assistance, disaster 
relief kind of cooperation and training that the U.S. military 
does with the Vietnamese military.
    I think those are probably the three key pillars going 
forward. I think related to that would be the training we are 
doing to help Vietnam to be able to deploy in support of UN 
peacekeeping operations. So again, I think it is a robust 
relationship. If confirmed, those would be the first priorities 
that I would promote, if confirmed. Thank you.
    Ms. Fitzpatrick. Thank you, Senator Kaine.
    The United States and Timor-Leste share an interest in 
promoting regional peace, stability, and security. And in that 
regard, we have a very vibrant mil-to-mil relationship. It 
includes ship visits. It includes several annual exercises a 
year. It includes annual defense discussions. It includes 
training toward the professionalization of the Timorese 
military, as well as to enhance their expertise in various 
areas.
    And there is also another area. You mentioned the U.S. 
Navy. The U.S. Navy Seabees are present in Timor-Leste. They 
have been there since 2009 on regular rotations every 6 months. 
And as part of our humanitarian outreach effort, in conjunction 
with our mil-to-mil engagement, they engage in infrastructure 
projects. They have completed about 109 projects, including 
constructing a hospital maternity ward and other facilities, a 
new classroom for public schools, repairing water and 
sanitation facilities, and other projects in that regard. The 
work of the Navy Seabees is sort of a great representative of 
the United States in Timor-Leste.
    And although it is not quite mil-to-mil, I do want to 
mention our Peace Corps volunteers who are there and, of 
course, our embassy colleagues who are doing an active effort 
in public diplomacy, as well as our USAID colleagues.
    So, sir, those would be the areas that I would very much 
welcome continuing to support and advance, consistent with the 
work that I have done throughout my career advancing 
humanitarian assistance, human rights, as well as security and 
military-to-military policy.
    Senator Kaine. Thanks so much.
    Senator Gardner. Thank you, Senator Kaine.
    Mr. Kritenbrink, a couple more questions.
    The U.S. in 2017--in May, the U.S.-Vietnam joint statement 
did not mention negotiating a bilateral trade agreement with 
Vietnam. That was following the U.S. decision to withdraw from 
the proposed Trans-Pacific Partnership. Do you think the 
administration will be able to pursue a bilateral agreement 
with Vietnam, or should pursue an agreement? And if so, when 
and what do you think our top trade priorities will be with 
Vietnam going forward?
    Mr. Kritenbrink. Thank you, Mr. Chairman, for that 
question.
    I would like to emphasize, Mr. Chairman, that we continue 
to have an exceptionally important and broad and dynamic trade 
and economic relationship with Vietnam. Given the decision that 
we have made on TPP, the focus of our efforts now with Vietnam 
comes under the rubric of our TIFA, our trade and investment 
framework agreement. On a bilateral basis, we are continuing to 
engage proactively with Vietnam on a broad number of areas 
related to the economic and trade relationship. As I mentioned 
in my statement, there are many economic opportunities in 
Vietnam. Trade continues to grow exponentially. But there are 
also many challenges that remain as well.
    So primarily under the TIFA framework, our two sides are 
proactively addressing several priorities that we think need to 
be addressed so as to level the playing field, increase market 
access in a fair manner for U.S. and other foreign firms.
    I think two issues that I would mention in particular, Mr. 
Chairman, would be protection of intellectual property rights, 
which remains a real focus for the administration and a top 
priority.
    And the other issue that I would mention would be labor 
issues. I think Vietnam has made some progress on labor. I 
think Vietnam recognizes that it also needs to carry out 
certain reforms if it wants to be the kind of economy and 
country that it wants to be. But these issues are not related 
just to Vietnam's international obligations on labor. They also 
play an important part in the trade relationship.
    So those would be two specific areas.
    And then, of course, there are a whole number of specific 
issues that we as the U.S. Government as a whole of government, 
but also our friends at the U.S. Trade Representative in 
particular are focused on. Some of those have to do with 
electronic payments, other market access issues related to some 
of the agricultural exports to Vietnam. But those would be the 
priorities. And again, Mr. Chairman, I would just say our focus 
now is on working those issues bilaterally under the TIFA.
    Senator Gardner. Thank you.
    Senator Markey, any additional questions?
    Senator Markey. No, thank you.
    Senator Gardner. Well, I want to thank you both for your 
time and testimony today. If there are no other questions from 
the panel here, of course, I will announce that the record will 
remain open until the close of business on Friday, including 
for members to submit questions for the record. This is the 
homework assignment time, so I kindly ask the witnesses to 
respond as promptly as possible and your responses will be made 
a part of the record.
    Thank you to all of you for your service today and your 
nominations. I wish you the best of luck.
    Senator Markey. Mr. Chairman?
    Senator Gardner. Yes, absolutely, please.
    Senator Markey. Can I just say these are two outstanding 
candidates, career, and necessary in terms of ensuring that our 
country is well represented overseas. Thank you and thanks to 
your families as well for your service as well.
    Senator Gardner. Thank you, Senator Markey.
    And with that, the committee is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]



                              ----------                              


              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
         to Daniel J. Kritenbrink by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, I have placed the utmost importance 
on promoting human rights and democracy. During multiple assignments at 
the U.S. Embassy Beijing Political Section and later as Deputy Chief of 
Mission, and during my assignments as China Desk Director at the State 
Department and as Senior Director for Asian Affairs at the National 
Security Council, I prioritized human rights as a key pillar of our 
engagement with China, and had frequent and frank conversations on 
human rights issues as well as individual human rights cases with 
China's officials and leaders. For example, I participated in and 
helped organize multiple rounds of the U.S.-China Human Rights 
Dialogue, met frequently with civil society activists, organized 
meetings of activists with the U.S. Ambassador and various U.S. senior 
officials, oversaw U.S. Government funding designed to support some 
activists' work, and supported negotiations over the release and travel 
to the United States of a high-profile human rights advocate.
    As NSC Senior Director, I advocated for human rights issues and 
activists in other Asia-Pacific countries as well, including Vietnam. 
For example, in 2015 and 2016, I organized and participated in meetings 
at the NSC with representatives of the Vietnamese-American and Vietnam 
human rights/civil society communities to explain our approach to 
Vietnam, hear their concerns, and receive their advice. In 2015 and 
2016, I oversaw the negotiation of two bilateral Joint Statements with 
the Vietnamese, both of which included strong human rights language, 
and in 2016 I helped organize a meeting in Hanoi for the President with 
Vietnamese civil society representatives.
    If confirmed as U.S. Ambassador to Vietnam, I will continue to 
emphasize to the Vietnamese Government the importance of human rights 
and will meet with Vietnamese civil society representatives. 
Demonstrable progress on human rights is critical to enabling the 
bilateral relationship- and Vietnam itself--to reach its fullest 
potential. I am committed to engaging Vietnam at the highest levels to 
press for progress on human rights and fundamental freedoms, including 
the freedom of religion and belief, freedom of expression, and respect 
for the rule of law.

    Question 2. What are the most pressing human rights concerns in the 
Socialist Republic of Vietnam today? What are the most important steps 
you expect to take--if confirmed--to advance human rights and democracy 
in the Socialist Republic of Vietnam? What do you hope to accomplish 
through these actions?

    Answer. The harassment, arrest, conviction, and excessive 
sentencing of individuals in Vietnam for exercising their human rights 
and fundamental rights, including freedom of expression, is deeply 
troubling. The continuing arbitrary detention of prisoners of 
conscience, including lengthy pretrial detentions and restrictions on 
individuals' ability to worship and practice their faith, are other 
pressing human rights concerns. If confirmed, I will advocate for the 
immediate and unconditional release of all prisoners of conscience. I 
will press the Government of Vietnam to bring its laws into conformity 
with Vietnam's constitution and international human rights obligations 
and commitments, including by removing burdensome restrictions on civil 
society organizations. I will meet with representatives of Vietnamese 
civil society. And I will continue to stress to Vietnam's leadership 
that progress on human rights is critical to enabling our partnership 
to reach its full potential to the mutual benefit of our peoples.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face the Socialist Republic 
of Vietnam in advancing human rights, civil society and democracy in 
general?

    Answer. Despite some progress, the human rights situation in 
Vietnam remains challenging. Vietnam needs to unconditionally release 
all prisoners of conscience, and allow all persons to express their 
views and practice their religious beliefs without intimidation or 
harassment. Capacity building for civil society and rights 
organizations will continue to be instrumental to advancing human 
rights in Vietnam. Promoting respect for the rule of law will also 
require engagement, training, and technical assistance. I will continue 
to advocate for USG technical assistance to Vietnam's National Assembly 
and judicial sector to promote legislative and judicial reform.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Socialist Republic of Vietnam?

    Answer. Yes. If confirmed, I will meet with human rights, civil 
society, and other NGOs in Vietnam as well as in the United States. I 
look forward to continuing the positive interactions and collaboration 
Mission Vietnam has already forged with established NGOs, while also 
reaching out to newer and smaller advocacy groups to ensure that all 
voices are heard.

    Question 5. Will you and your embassy team actively engage with the 
Socialist Republic of Vietnam to address cases of key political 
prisoners or persons otherwise unjustly targeted by the Socialist 
Republic of Vietnam?

    Answer. Yes. If confirmed, I will continue to call for the 
immediate and unconditional release of key political prisoners or 
persons otherwise unjustly targeted by the Government, and my team will 
do the same under my leadership.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will proactively support the Leahy Law by 
ensuring our Mission maintains its stringent vetting processes for any 
Vietnamese security force members and units nominated for training. 
Mission Vietnam will maintain up-to-date Standard Operating Procedures 
for Leahy vetting and will continue to take a whole-of-mission approach 
to this process. I will also ensure that we take into account human 
rights and governance principles as we plan our security assistance and 
cooperation activities. I will also continually highlight the 
importance of professionalism, rule of law, and human rights in our 
engagements with Vietnam's police, military, and other law enforcement 
counterparts.

    Question 7. Will you engage with Vietnamese on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, human rights, civil rights, and 
governance will continue to be top priorities for Mission Vietnam.

    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. Throughout my career, including in several leadership 
positions, I have had multiple opportunities to build high-functioning 
teams that represented America in all its diversity. If confirmed, I 
will ensure Mission Vietnam continually strives to promote equal 
opportunity for our officers, including women and those from 
historically marginalized groups.

    Question 9. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, and as I have done throughout my career, I 
will make clear to U.S. Mission staff that diversity, equal 
opportunity, and respect for all employees are top priorities. I will 
also encourage all supervisors to take available courses on equal 
employment opportunity principles, diversity, and related issues. I 
will urge them to address unconscious bias and similar topics when they 
mentor junior colleagues. I will direct supervisors to transparently 
and fairly provide opportunities to all entry- and mid-level 
professionals. Through my words and actions, and by providing time for 
professional development discussions to address diversity, I will 
highlight that this is a priority for me as Ambassador, if confirmed.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the Socialist Republic of Vietnam?

    Answer. No.

    Question 13. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. No.

    Question 14. Fulbright University Vietnam (FUV) and its predecessor 
entities in Vietnam have received steady funding from both State and 
USAID for almost two decades. FUV is the first-private, fully 
independent Vietnamese university founded on the principles of 
accountability, meritocracy, transparency, self-governance, mutual 
respect, and open inquiry. It is a prime example of the soft power 
assets in the region that the U.S. Government has historically invested 
in and should continue to invest in. If confirmed, how do you plan on 
supporting soft power tools such as the Fulbright University Vietnam as 
they prepare to welcome their first undergraduate class in the next 
year?

    Answer. If confirmed, I will ensure the U.S. Mission's full support 
for FUV and the Peace Corps program, as well as other education and 
youth programs. FUV is poised to matriculate the first class of 50-60 
students in its Master's Degree in Public Policy Program in October 
2017. The United States continues to support FUV's capacity to recruit, 
enroll, and retain up to 1,000 future undergraduate students. I also 
look forward to supporting the Peace Corps' recruitment and placement 
of volunteers on the ground.
    If confirmed, I will ensure that Mission Vietnam continues to 
strongly promote increased understanding between the people of the 
United States and Vietnam through its support for a range of programs, 
including exchange programs. Such programs include the Fulbright 
Student and Scholar Program, the International Visitor Leadership 
Program, the Young Southeast Asian Leaders Initiative, and the U.S. 
Speaker Program, to name a few. Our current engagement with Vietnam and 
the Vietnamese people is robust and has the potential to deepen and 
further expand to the benefit of our people-to-people ties. This will 
be one of my priorities as Ambassador, if confirmed.

    Question 15. Three war legacy issues remain a serious concern for 
Vietnam-the environmental and health effects of Agent Orange/dioxin; 
unexploded ordnance; and U.S. assistance in recovering Vietnamese 
missing-in-action (MIAs). In the past the U.S. Government has shown a 
willingness to assist in the environmental remediation of land 
contaminated by the dioxin in Agent Orange and other defoliants sprayed 
on Vietnam during the war, but some reluctance to provide support for 
Vietnamese nationals with medical conditions attributed to exposure to 
dioxin. If confirmed as ambassador what forms of U.S. assistance would 
you recommend to address these war legacy issues? What would you 
recommend that the United States can or should do to provide assistance 
to Vietnamese nationals with medical and health conditions associated 
with dioxin exposure?

    Answer. Addressing legacies of the Vietnam War continues to be one 
of the means by which our government strengthens U.S. ties with Vietnam 
and promotes goodwill between our peoples, building a foundation of 
trust that has enabled the U.S.-Vietnam partnership to move forward. If 
confirmed, I look forward to supporting our joint humanitarian efforts 
to account for personnel still missing from the war, as I believe 
providing the fullest possible accounting for U.S. personnel missing 
from the Vietnam War era remains our solemn obligation, and we must not 
stop until that work is complete.
    If confirmed, I will also support continued efforts to mitigate the 
threats posed by unexploded ordnance, as well as exploring the best 
ways for the United States to continue our support for dioxin 
remediation in Vietnam.
    We have been working hard with Vietnam to clean up a dioxin hotspot 
in Danang, which is on track to conclude this year. The President's FY 
2018 budget request includes up to $15 million for Agent Orange/dioxin 
cleanup. The United States and Vietnamese Governments are now reviewing 
potential remediation alternatives and plans regarding dioxin 
remediation at Bien Hoa.
    We also support continued assistance for Vietnamese with 
disabilities, regardless of cause, and have contributed to programs in 
support of people with disabilities across the country. We are also 
helping to build the capacity of the Vietnamese Government to provide 
medical and social services to all of their citizens with disabilities.
    If confirmed, I will continue Mission Vietnam's vital work in all 
these areas.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Daniel J. Kritenbrink by Senator Marco Rubio

    Question 1. The U.S.-Vietnam partnership has many dimensions, 
including trade and economic ties as well as mutual security interests. 
As these elements of our partnership expand-they cannot come at the 
expense of speaking candidly with the Vietnamese Government about its 
violations of the rights of its own citizens.
    According to Freedom Houses' Freedom of the World Report 2017, 
Vietnam received a score of "Not Free." Basic freedoms, such as freedom 
of religion and freedom of expression are heavily restricted in 
Vietnam, most independent candidates are not allowed to run in 
legislative elections, and the Government has continued to crackdown on 
social media and the internet.
    If confirmed, how do you plan to raise these issues with the 
Vietnamese Government?

    Answer. Throughout my career, I have placed the utmost importance 
on promoting human rights and democracy. If confirmed as U.S. 
Ambassador to Vietnam, I will press the Government of Vietnam to bring 
its laws into conformity with Vietnam's constitution and international 
human rights obligations and commitments, including by removing 
burdensome restrictions on civil society organizations. I will continue 
to stress to Vietnam's leadership that progress on human rights, 
including religious freedom, is critical to enabling our partnership to 
reach its full potential to the mutual benefit of our peoples.

    Question 2. Do you commit to urge them to respect the basic human 
rights of their citizens and make sincere political reforms?

    Answer. Yes. If confirmed, I commit to urge the Government of 
Vietnam to respect human rights, and to implement reforms to bring its 
laws into conformity with Vietnam's constitution and international 
human rights obligations and commitments. I am committed to engaging 
Vietnam at the highest levels to press for progress on human rights and 
fundamental freedoms, including the freedom of religion or belief and 
the freedom of expression, as well as respect for the rule of law.

    Question 3. If confirmed, would you urge the Government to release 
specific political prisoners, such as human rights and pro-democracy 
lawyer Nguyen Van Dai?

    Answer. Yes. Vietnam should unconditionally release all prisoners 
of conscience. If confirmed, I will continue to call for the immediate 
and unconditional release of all political prisoners or persons 
otherwise unjustly detained by the Government--including Nguyen Van 
Dai, among others--and my team will do the same under my leadership.

    Question 4. In its 2017 Annual Report, the bipartisan U.S. 
Commission on International Religious Freedom (USCIRF) again 
recommended that Vietnam be designated a Country of Particular Concern, 
and documented severe religious freedom violations, especially against 
ethnic minority communities.

   Do you believe the U.S. should being doing more to push for 
        religious freedom in Vietnam?

    Answer. Human rights, including religious freedom, remain an 
important pillar of our engagement with Vietnam. Despite some positive 
steps, removing restrictions on religious freedom in Vietnam remains a 
key concern and priority for the United States. Vietnam should allow 
all persons to express their views and practice their religious beliefs 
without intimidation or harassment. Vietnam also should lift onerous 
restrictions on the recognition and registration of religious 
organizations. If confirmed, I will urge Vietnam to make significant 
and sustained progress on protections for religious freedom for all of 
its people, including members of both registered and unregistered 
religious groups and ethnic minority communities. If I am confirmed, 
the U.S. Mission in Vietnam under my leadership will continue to 
monitor the situation closely and regularly raise our ongoing concerns 
as we continue to urge the Government to make significant progress on 
religious freedom.

    Question 5. If confirmed, would you commit to working with USCIRF 
and the broader religious freedom community to urge the Vietnamese 
Governments to make improvements in their religious freedom record?

    Answer. Yes. If confirmed, I will work with USCIRF and the broader 
religious freedom communities in Vietnam and the United States to urge 
the Vietnamese Government to improve its record on religious freedom 
and do more to protect the religious freedom of all its citizens.



                               __________


     Responses to Additional Questions for the Record Submitted to
         Kathleen M. Fitzpatrick by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has been a top 
priority for me throughout my career. In particular, when I served as 
Deputy Assistant Secretary in the Bureau of Democracy, Human Rights and 
Labor, I was very proud to lead efforts to advance our human rights 
priorities, including for religious freedom, in the Western Hemisphere, 
the Middle East, and in East Asia. Working with colleagues in the 
Bureau of East Asian and Pacific Affairs, I helped organize a U.S.-
China Human Rights Dialogue in 2010 and traveled to Vietnam for 
discussions with Vietnamese officials emphasizing the importance of 
religious freedom.
    When I served as Chief of Staff for the Under Secretary for 
Civilian Security, Democracy and Human Rights, I worked closely with 
the Office for Combatting Trafficking in Persons. I helped manage the 
Annual Combatting Trafficking in Persons report process to ensure it 
effectively targeted trafficking issues and raised public awareness 
about trafficking issues.
    Many of my most rewarding Foreign Service experiences have been 
engagements with civil society leaders, hearing their stories and 
finding ways for our programs and diplomatic outreach could support 
their work. If confirmed, I look forward to engaging with the Timorese 
civil society in the same way.

    Question 2. What are the most pressing human rights concerns in the 
Democratic Republic of Timor-Leste today? What are the most important 
steps you expect to take--if confirmed--to advance human rights and 
democracy in the Democratic Republic of Timor-Leste? What do you hope 
to accomplish through these actions?

    Answer. The people of Timor-Leste have built a new country on the 
foundations of democracy and human rights, where there is respect for 
diversity and protections for individuals of different faiths, 
cultural, and ethnic backgrounds. Timor-Leste's civil society is 
vibrant and active, and there is a free and developing media. Timor-
Leste has made significant progress in many areas involving human 
rights. In 2017 Timor-Leste passed quality trafficking-in-persons (TIP) 
legislation and significantly increased the number of TIP 
investigations and prosecutions.
    Yet, as a young, post-conflict country, many challenges remain. The 
Timor-Leste Government continues to consult with the Government of 
Indonesia to reconcile their difficult past and promote transitional 
justice. More can be done to address gender-based violence. If 
confirmed, I pledge to draw on all of my experience advancing democracy 
and human rights to continue the diligent work of Embassy Dili in 
supporting our Timorese hosts in tackling these challenges. If 
confirmed, I will raise these issues with the Timor-Leste Government, 
engage with civil society to hear about their concerns, and continue to 
support programs that build capacity in Timor-Leste's justice sector, 
empower women, and enable civil society.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Democratic 
Republic of Timor-Leste in advancing human rights, civil society and 
democracy in general?

    Answer. The most significant challenge to addressing human rights 
concerns in Timor-Leste is developing the institutional capacity to 
effectively tackle the social and legal complexity of these issues. 
Timor-Leste has been independent for just 15 years, and its 
institutions are nascent. If confirmed, I will lead our embassy team in 
prioritizing programs and outreach that can build capacity in Timor-
Leste to support the democracy, governance, and rule of law that I know 
the Timorese people prioritize.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Democratic Republic of Timor-Leste?

    Answer. Yes. I am committed to meeting with human rights, civil 
society, and other non-governmental organizations in the United States 
and with local human rights NGOs in the Democratic Republic of Timor-
Leste.
    Some of my most rewarding experiences when serving as a Deputy 
Assistant Secretary in the Bureau of Democracy, Human Rights and Labor 
were meetings with civil society in countries in various regions of the 
world to hear their concerns and to demonstrate U.S. commitment to 
supporting human rights and democracy.

    Question 5. Will you and your embassy team actively engage with the 
Democratic Republic of Timor-Leste to address cases of key political 
prisoners or persons otherwise unjustly targeted by the Democratic 
Republic of Timor-Leste?

    Answer. Should there be cases of persons unjustly targeted or 
imprisoned by the Government of Timor-Leste for political purposes, I 
affirm that, if confirmed, I and the embassy team would actively engage 
with government officials to address such cases.

    Question 6. If confirmed, what steps will you take to proactively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. The Department of State takes the Leahy Law very seriously 
and, if confirmed, I will ensure we carefully vet recipients of our 
security assistance, in accordance with the Leahy Law. I will also 
continually highlight the importance of professionalism, rule of law, 
and human rights in our engagements with Timor-Leste's policy-makers 
and military and law enforcement counterparts.

    Question 7. Will you engage with Timorese on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will consider it an integral part of 
my job to engage with the Timorese on matters of human rights, 
including civil rights, and governance as part of our bilateral mission 
and annual reporting requirements, such as the Human Rights Report.

    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I will continue to be committed to fostering a diverse and 
inclusive team, as I have throughout my career, including as Principal 
Deputy Assistant Secretary in the Bureau of Intelligence and Research 
where I have emphasized diversity, leadership, and professional 
development for all of our team. If confirmed, I will ensure the U.S. 
Mission in Timor-Leste continually strives to promote equal 
opportunities for our officers, particularly those from diverse 
backgrounds or historically marginalized or underrepresented groups. I 
will also actively engage the other leaders at the Mission to 
prioritize mentoring and ensure that we are developing a new generation 
of diplomats to represent our country effectively.

    Question 9. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. My experience has given me many opportunities to build 
high-functioning teams with diverse members. I remain committed to 
equal employment opportunity principles. If confirmed, I will foster a 
work environment that recognizes the contributions of all employees, 
and will make sure they have information available about the 
Department's Diversity and Inclusion Strategic Plan, foreign affairs 
affinity organizations, and opportunities specific to various groups.
    If confirmed, I will encourage all supervisors to take available 
courses on EEO principles, diversity, and related issues. I will urge 
them to include unconscious bias and similar topics when they mentor 
junior colleagues. I will direct supervisors to transparently and 
fairly provide opportunities to all entry- and mid-level professionals. 
If confirmed, I will highlight that this is a priority for me as the 
Ambassador by providing time for professional development discussions 
that address diversity.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?
    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the Democratic Republic of Timor-Leste?

    Answer. No.

    Question 13. Have there been any material changes to your financial 
assets, income, or any other information requested by the OGE financial 
disclosure form since the date you signed it? If so, please list and 
explain below, and whether you have raised them with OGE.

    Answer. No.



                               __________





                              NOMINATIONS

                              ----------                              


                  WEDNESDAY, SEPTEMBER 27, 2017 (p.m.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Ron Johnson, 
presiding.
    Present: Senators Johnson [presiding], Risch, Flake, 
Gardner, Murphy, Shaheen, Kaine, and Markey.

             OPENING STATEMENT OF HON. RON JOHNSON,
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. This hearing will come to order.
    I want to welcome our nominees. And before moving to 
opening statements, I would like to welcome our two esteemed 
colleagues, Senator Stabenow, and I will include Senator Graham 
in the esteemed column as well.
    Senator Stabenow will introduce our nominee to be 
Ambassador to The Netherlands, Peter Hoekstra, and Senator, if 
you would like to give your opening introduction.

              STATEMENT OF HON. DEBBIE STABENOW, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
And it is really a great honor and pleasure to be here today to 
introduce a former colleague. We have worked together on many 
issues. We have also been on the other side of the table versus 
each other, and yet, through all of that, I know that 
Congressman Pete Hoekstra proudly represented Michigan's second 
congressional district for 18 years.
    And I think it is fair to say that there are few people 
more suited to serve as the U.S. Ambassador to The Netherlands 
than Pete Hoekstra. You could even say it is a job he was born 
to do. Pete was born in The Netherlands. When he was 3, his 
family moved to--and you guessed it--Holland, Michigan where he 
still lives with his wife Diane.
    And like all good Dutchmen, Pete loves biking. While 
campaigning for Governor of Michigan, he rode 1,000 miles 
around our very beautiful State.
    His Dutch background is not the only qualification Pete 
would bring to the job of Ambassador. Before he was elected to 
Congress, Pete earned an MBA from the University of Michigan 
and rose through the ranks at Michigan's own Herman Miller, 
eventually serving as Vice President of Marketing. And while in 
Congress, Pete was chairman of the House Permanent Select 
Committee on Intelligence, which gave him foreign policy 
experience that will serve him well as Ambassador.
    And as former Michigan Senator Arthur Vandenberg famously 
said--and his picture we are proud to have in the reception 
room in the United States Senate--he said politics stops at the 
water's edge. And they also stop at the shores of our Great 
Lakes.
    It is true that Pete Hoekstra and I do not always agree, 
but we feel the same way about our wonderful State of Michigan, 
about invasive species that we have tackled together, and about 
our country. Pete cares deeply about Michigan. He cares deeply 
about The Netherlands, and he cares deeply about America.
    I have no doubt he will use his experience and connections 
to strengthen the already strong ties between our two great 
countries. And it will be good for our State to have him 
serving in this prominent international role.
    I look forward to supporting his nomination, and I hope 
that he will get he chance to do some biking around The Hague. 
I am honored to introduce Congressman Pete Hoekstra. Thank you, 
Mr. Chairman.
    Senator Johnson. Thank you, Senator Stabenow.
    Now we are pleased to have Senator Graham, Lindsay Graham, 
who will introduce the President's nominee to be U.S. 
Ambassador to Switzerland and Liechtenstein, Mr. Edward 
McMullen.

               STATEMENT OF HON. LINDSAY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Well, thank you, Mr. Chairman and Ranking 
Member. And I want to echo everything that Senator Stabenow 
said about Pete. I have known him a long time and it is really 
a compliment to you that the President would choose you for 
such an important post.
    Ed McMullen I have known ever since I have been in 
politics. If you can survive South Carolina politics, you can 
handle Switzerland. [Laughter.]
    Senator Graham. To the people of Switzerland, I can tell 
you that the President has picked one of his closest advisors, 
the chairman of his South Carolina campaign, somebody who 
jumped on the Trump train early and has done it with class and 
style. So when Mr. McMullen speaks, the President will listen, 
and I think that is a compliment to the people of Switzerland.
    To Ed himself, he was an advisor to Senator McCain when he 
first ran for President. He has been enormously helpful to me, 
and he helped President Trump. I doubt if many people can say 
those three things. And he has done it with class, loyalty. And 
one of the greatest attributes of any Ambassador I think is 
loyalty and understanding and the ability to get people to work 
together. He will be a great representative for our Nation to 
one of our most important allies.
    He has been in business for over 30 years, McMullen Public 
Affairs. He worked for The Heritage Foundation in Washington, 
the South Carolina Policy Council. He is an alumnus of the 
American-Swiss Foundation young leaders conference and has 
traveled extensively in Switzerland and Italy. And he will be a 
good representative for the two countries that you have just 
mentioned, Switzerland and Liechtenstein.
    He was in charge of Governor McMaster's transition team. He 
was the Vice Chairman of the Presidential Inaugural Committee. 
He has received numerous awards in South Carolina. He has been 
a great conservative. But I want to tell my friends on the 
Democratic side that everyone respects Ed McMullen. He is 
someone who enjoys a lot of sport in our State. His lovely 
wife, Margaret Ann, is here today. Thomas and Katherine are 
very proud, his two children. He is a graduate of Hampden-
Sydney College in Virginia, Senator Kaine. He now serves as 
Vice Chairman and Chairman-elect of the National Alumni 
Association.
    And just in conclusion, I want to thank President Trump for 
allowing Ed to serve in a capacity that he is incredibly 
qualified for. And for the people of South Carolina, this is a 
real treat for us, a small State, having someone recognized by 
the President for such an important position. So I cannot 
recommend to you more strongly Mr. McMullen. He is ready for 
this job.
    And thank you very much, Mr. Chairman.
    Senator Johnson. The committee wants to thank the Senators 
for those kind introductions. I know you have busy schedules. 
So you are welcome to stay, but you just cannot stay there 
because we need those seats. [Laughter.]
    Senator Johnson. Thank you very much.
    So the committee gathers today to consider the nominations 
of ambassadorships to Spain, Germany, France, The Netherlands, 
and Switzerland and Liechtenstein. The United States has close 
relations with these countries based on enduring political, 
economic, defense, and cultural ties.
    Spain, Germany, France, and The Netherlands represent four 
of the European Union's top six economies. Together they 
account for approximately half of the EU's economic strength. 
Switzerland has Europe's ninth largest economy as a member of 
the European Free Trade Association. All five are among the top 
30 trading partners of the United States, and collectively they 
have direct investments in the U.S. economy worth $1.1 
trillion. So you can see these are important relationships.
    Our security ties are no less significant. France, Spain, 
Germany, and The Netherlands are leading members of NATO. 
Switzerland is a vital counterterrorism partner, helping the 
United States dismantle terrorist financial support networks. 
The strengths of these partnerships have helped forge an 
unprecedented era of peace and stability on a continent long 
ravaged by the great power of conflict.
    As the highest representative of the United States to these 
countries, you will be tasked with maintaining and 
strengthening these crucial relationships.
    Again, I want to thank all the nominees for accepting this 
responsibility, being willing to serve. It is a sacrifice. It 
is going to be a sacrifice for you and your family. And having 
spoken and met with all of you, I am sure you will represent 
this Nation well.
    Before I introduce the nominees for their opening 
statements, I would like to recognize the distinguished ranking 
member of this committee, Senator Murphy.

                STATEMENT OF HON. CHRIS MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman.
    I look forward to hearing your testimony and getting to 
questions and answers.
    Let me reiterate the chairman's thanks to you and to your 
families for your willingness to serve. When there is a problem 
in the world that needs United States leadership to solve it, 
the first place we turn is to Europe. This is a bond forged 
both by enduring values and interests around the world. And you 
are going to help, we hope, solidify a transatlantic 
partnership that has helped lead to an era of relative world 
stability that we hope can endure.
    You are going to face challenges. You will be working for 
an administration that cheered Britain's withdrawal from the 
European Union, that pulled the United States out of the Paris 
Climate Accord, that now threatens to pull the United States 
out of the U.S.-EU led Iran nuclear agreement. This is a very 
perilous moment for the transatlantic relationship because of 
the policies of this administration. You are going to both have 
the responsibility of soothing those tensions and reporting 
back accurately to this administration what people in Europe 
think about the President's policies.
    But we are very glad that you have chosen to take this 
responsibility, and we look forward to your testimony today.
    Senator Johnson. Thank you, Senator Murphy.
    Again, we welcome the nominees, and we certainly welcome 
their family. I encourage you, in your opening statements, to 
introduce family members that are in the audience.
    Our first nominee is the Honorable Peter Hoekstra. Peter is 
the President's nominee to be the U.S. Ambassador to The 
Netherlands. Mr. Hoekstra is a politician and business 
executive who served in Congress from 1993 to 2011, 
representing Michigan's second district. He was chairman of the 
House Permanent Select Committee on Intelligence from 2004 to 
2007 and the ranking Republican on the committee until 2011. 
Mr. Hoekstra continues to be active on public policy issues and 
in business affairs as a consultant, researcher, and writer. 
Mr. Hoekstra?

STATEMENT OF HON. PETER HOEKSTRA, OF MICHIGAN, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE KINGDOM OF THE NETHERLANDS

    Mr. Hoekstra. Thank you, Chairman Johnson, and good to be 
with you Ranking Member Murphy and other distinguished members 
of the committee. It is an honor to be with you today.
    I am deeply appreciative of the nomination that President 
Trump has provided to me to be the Ambassador to the Kingdom of 
The Netherlands. Obviously, with your concurrence and approval, 
I look forward to beginning my work in The Netherlands and once 
again serving the people of the United States of America.
    As all of us who have served in public office know, we 
could never get there without the support of many other people. 
Today I am joined by my wife of 42 years, Diane, right here. 
And also, we have had the support of my children and my 
daughter-in-law for the 18 years that I spent in Congress. We 
all know the frustrations and the joys that a family can go 
through when their father or their mother is called Congressman 
or Senator. But for our family, it has been a richly rewarding 
experience, and we look forward to the opportunity to serve 
again.
    I am also deeply appreciative of the kind words from 
Senator Stabenow and the support that I am also receiving from 
Gary Peters. I maybe could stop right now and say I cannot add 
anything more. I can only do damage to the very, very kind 
words that Senator Stabenow provided. As she said, in Michigan, 
we know that politics stops at the water's edge. Whether that 
is Lake Michigan or whether that is the Atlantic, that is how 
we always thought, and we always had the opportunity to work 
together. And when we disagreed, it was never on a personal 
basis, and we always remained friends and respected each other.
    Obviously, this is a special opportunity for me. I am a 
native-born Dutchman. I was born in The Netherlands in 1953. My 
parents immigrated in 1956. My parents were liberated by 
American and Canadian troops during World War II. So they had 
that fondness and appreciation for America. But packing up 
three kids and moving to this country was a wonderful 
opportunity and it was a leap of faith.
    My parents made the commitment that they would become 
Americans. They actually changed the name of one of their kids 
because they wanted to make sure that he would be fully able to 
integrate into American society and become an American.
    We lived the American dream. My dad ran a small bakery. My 
mom was a stay-at-home mom. Their kids all had the opportunity 
to go to college. And 36 years after emigrating to the United 
States, they had the opportunity to see their son get sworn 
into Congress. America was all that they had hoped for, and for 
all of us, it has become our home.
    The opportunity to go back and represent the United 
States--it is a humbling opportunity. The Netherlands was the 
second country to formally recognize this newly born country in 
1782. So this is truly a unique and unbroken relationship.
    The Dutch have continued their strong economic ties. They 
are one of the top foreign investors in the United States. We 
have a trade surplus with them of roughly $24 billion per year.
    They are a strong military ally. They supported us in our 
war for independence. They supported us in the war in 
Afghanistan. 25 Dutch soldiers have sacrificed their lives in 
Afghanistan. And obviously, that is an important relationship 
with the threats that we face today, whether it is terrorism, 
the threat from Russia and other unnamed threats that we may 
face in the future. It is hard to find an ally that has been 
more dedicated and consistent than what the Dutch have been.
    Obviously, if provided with the opportunity, it will be my 
job to manage that relationship and leave it stronger and 
better than what we have inherited. We stand on the work of 
hundreds and thousands of people that have built this 
relationship over 200 years, the proud professionals of our 
Foreign Service. I had the opportunity to meet with many of 
them when I was on the Intelligence Committee. I respect their 
work. I have relied on their foreign intelligence experience, 
and I will in the future. They are truly amazing people.
    I recognize the obligation of implementing the strategies 
and policies of the United States. These policies are 
established in Washington, D.C. I recognize the responsibility 
to the President. I recognize my responsibility to the 
Secretary of State. But as a person of the House, I also 
recognize my responsibility to the Congress of the United 
States, and I pledge that I will work faithfully and hopefully 
effectively with both the House and the Senate.
    With your approval, I look forward to once again having the 
opportunity to serve this great country. Thank you very much 
for your time, and I look forward to answering any questions 
you may have.
    [Mr. Hoekstra's prepared statement follows:]


                  Prepared Statement of Peter Hoekstra

    Chairman Johnson, Ranking Member Murphy, and distinguished 
committee members, it is an honor to be with you today.
    I am deeply appreciative of President Trump for the nomination to 
be the next U.S. Ambassador to the Kingdom of the Netherlands. With 
your concurrence and approval, I look forward to beginning my work in 
the Netherlands and once again serving the people of the United States 
of America.
    As those who have been a part of public service know, there are 
many individuals that have helped us achieve these opportunities. I 
would like to recognize Diane, my wife of more than 42 years, for her 
unconditional love and support. Our children, Erin, Allison, and Bryan, 
and daughter-in-law Rebecca, have been supportive throughout the joys 
and frustrations of having a congressman as a father. The time in 
public service was a special and rewarding time for all of us.
    I'm also deeply appreciative of the support that Senators Debbie 
Stabenow and Gary Peters have expressed. As a Michigan delegation, we 
always knew when to set aside partisan considerations and support our 
State and each other. As they have stated, in America politics stops at 
the water's edge. Thank you Senators Stabenow and Peters.
    This is a special opportunity. I am a native Dutchman. I was born 
in the Netherlands in 1953. In 1956 my parents immigrated to the United 
States with their three young children. For them it was the beginning 
of an adventure in ``the land of opportunity.'' They had some previous 
experience with Americans, as it was American and Canadian troops who 
liberated them and an occupied Netherlands in 1945, but this was a leap 
of faith.
    My parents made the commitment that they would become 
``Americans,'' even changing the name of one of their children so that 
he would fit in.
    We lived the American dream. My dad operated a small bakery. My mom 
was a stay-at-home mother. Their kids all graduated from college and 36 
years later they saw their son sworn into the United States Congress. 
America has been all they had hoped for. For all of us, it became our 
new home.
    The opportunity to go back and represent the United States to the 
Netherlands is a humbling opportunity. The Netherlands was the second 
country to formally recognize this newly born country in 1782. It 
supported the struggle for independence, supplying weapons and 
ammunition. The United States and the Netherlands have had an unbroken 
record of friendship going back more than 240 years. This is truly a 
unique and unbroken relationship.
    The Dutch have and continue to be a strong economic partner. They 
are one of the largest foreign direct investors in the United States. 
The U.S. also enjoys the largest trade surplus in any bilateral 
relationship with the Netherlands, roughly $24 billion. I recognize the 
strength of this relationship and will look at ways to build the 
economic ties even stronger for the benefit of both countries.
    The Dutch have also been a strong military ally of the United 
States. In Margraten, a small Dutch town, the citizens have adopted the 
graves of 8,301 U.S. military personnel who paid the ultimate price in 
helping liberate the Netherlands and defeat the Nazi's in World War II. 
The Dutch have also been a full partner in the efforts to defeat the 
threat from terrorism. Twenty-five Dutch soldiers have died in the 
Afghan war. From the founding of our country, through many conflicts 
including today's, the two countries have always stood shoulder to 
shoulder, never against each other. That needs to continue as we face 
the threats of terrorism, Russia, and other unnamed future challenges.
    Economically and militarily, it is difficult to find any ally who 
has stood by our side, hand in hand, for such a long period of time. As 
such, I recognize that the work of the men and women of the U.S. 
embassy in The Hague is a part of this long relationship with the 
Dutch. We will stand on the foundation laid by those who have served so 
effectively and diligently for the last 200 plus years. We will be 
entrusted to manage this relationship today and must leave it stronger 
and better than what we have been given.
    We walk and work in the footsteps of the first U.S. Ambassador to 
the Netherlands, John Adams, and the thousands of individuals who have 
built this strong and special relationship through the years.
    Personally, I look forward to working with those who have dedicated 
their lives to the foreign service. In my eighteen years in Congress, 
and especially my ten years on the Intelligence Committee, I observed 
the talents and the skills of our State Department professionals 
firsthand. Their knowledge of how to conduct foreign policy is 
something that I have relied on in the past and will continue to rely 
on in the future. They are truly amazing people.
    As a Congressman, I have interacted frequently with the Dutch on 
trade, military and intelligence, and cultural issues. This position 
will enable me to build on that experience.
    As an ambassador, I recognize the obligation of implementing the 
strategies and policies of the United States. These policies are 
established in Washington, D.C. I recognize the responsibilities that I 
have to the President and Secretary of State Tillerson; and as a man of 
the House, the responsibility to the Congress of the United States.
    With your approval, I look forward to once again having the 
opportunity to serve this great country. Thank you very much for your 
time today. I look forward to answering your questions.


    Senator Johnson. Thank you, Congressman Hoekstra.
    Our next nominee is Mr. Richard Duke Buchan, and Mr. Buchan 
is the President's nominee to be the U.S. Ambassador to Spain. 
Mr. Buchan is the founder and CEO of Hunter Global Investors 
LP. He and his family own and manage farms that grow over 100 
varieties of heirloom vegetables and raise horses. He is active 
in a number of educational and philanthropic causes. Mr. Buchan 
established the University of North Carolina's largest single 
endowment focused on Spanish languages, literature, and 
culture. Mr. Buchan?

    STATEMENT OF RICHARD DUKE BUCHAN III, OF FLORIDA, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE KINGDOM OF SPAIN

    Mr. Buchan. Thank you, and thank you, Mr. Chairman and 
distinguished members of the committee.
    A special thanks to Senator Johnson again for your 
introduction and support.
    It is a great honor to appear before this distinguished 
committee. I am deeply grateful to President Trump and humbled 
to be his nominee to serve as the United States Ambassador to 
the Kingdom of Spain and the Principality of Andorra. If 
confirmed, I will work tirelessly to represent the interests of 
the United States of America and to further enhance our strong 
partnerships with these two great nations.
    Each of us has followed a unique path to public service. As 
a 10th generation North Carolinian who grew up on a tobacco and 
cattle farm, I know that I am here because of the people and 
the land that nurtured me. I would like to recognize those in 
attendance today from my family: my amazing wife, Hannah--they 
are all behind me--my three dear children, Cate, Beau, and 
John; and my charming and insightful mother Betty. My father is 
here in spirit. I would also like to take a moment to remember 
my grandmother who taught me that I have two ears and I have 
one mouth and that I should use them accordingly. And that 
lesson has served me well in life so far.
    If confirmed, I look forward to joining the extraordinary 
team from the State Department led by Secretary Tillerson. The 
talented staff of the U.S. mission to Spain works diligently to 
serve our great Nation. I want to recognize their families who 
serve alongside them with equal honor, dedication, and 
commitment. My career in international finance has focused on 
building bridges often between diverse individuals and groups 
to bring out the best in others to solve problems. I hope to 
apply those skills leading Mission Spain.
    Global engagement is vital to America's success. My 3 
decades of work in Spain, other European countries, Latin 
America, and Asia have taught me the importance of listening to 
and learning from others to forge solutions. If confirmed, this 
experience and international perspective will be vital to my 
role as the U.S. Ambassador.
    This opportunity to serve my country is a dream come true. 
I have loved Spain since my childhood when I first read about 
that faraway land of Don Quixote and Picasso in the World Book 
Encyclopedia. In 1980, as an eager and curious high school 
student, I first convinced my parents to let me study abroad in 
Valencia, Spain.
    At the University of North Carolina at Chapel Hill, I 
double majored in Spanish and economics, studying an entire 
academic year in Seville, Spain. In the years since, my family 
has worked to strengthen ties to Spain and Latin American 
countries by establishing The Buchan Excellence Fund, which was 
previously mentioned. It is UNC's single largest endowment 
focused on Spanish languages, literature, and culture. It 
embodies my conviction that knowledge, understanding and, above 
all, human connections are the keys to success in business, 
diplomacy, and life. As a family, we have a deep appreciation 
and respect and love for the Spanish people and culture. It is 
only surpassed by our love for the United States of America.
    Sadly, Spain like America has faced terror attacks at home, 
most recently in Barcelona. As we share their grief, we deeply 
admire their resolve in the face of evil. Spain also 
understands this is a global conflict, bravely committing blood 
and treasure to combat terror around the world. It is a 
significant contributor to NATO, EU, and U.N. peacekeeping 
missions. For over 60 years, Spain has been a welcoming host to 
our military. Rota Naval Station and Moron Air Base are 
essential for major coalition operations in the fight against 
terrorism. We thank the Spanish Government and people for their 
support. If confirmed, I will work to strengthen these historic 
ties as we confront our common enemies.
    As I know firsthand from my years as a global investor, 
Spain is a vital economic partner. The United States and Spain 
generated $24 billion in two-way trade in 2016. Spain is our 
ninth largest source of foreign direct investment. U.S. 
subsidiaries of Spanish firms employ more than 80,000 U.S. 
workers. My career has been built on finding and pursuing 
opportunities. If confirmed, I will strive to increase Spanish 
investment in the U.S. and to increase opportunities for U.S. 
businesses in Spain.
    Our human connections to Spain are deep and meaningful, 
stretching back to before the founding of our republic. Over 2 
million Americans traveled to Spain last year to explore its 
rich culture and beautiful landscape. Approximately 770,000 
Spaniards visit the U.S. each year, spending about $1.7 
billion. More than 200,000 Americans live in Spain. If 
confirmed, the safety and security of these American citizens 
will be a top priority.
    We can also rely on Spain to share our broader geopolitical 
interests. Spain has been a reliable backer of EU sanctions 
against Russia and North Korea. Spain is also an important 
partner in seeking democratic reforms in Venezuela. If 
confirmed, I will vigorously represent our policies to ensure 
that the United States and Spain continue to work together 
closely.
    While I have spoken much of Spain, if confirmed, I will 
also represent the United States before the Principality of 
Andorra. Situated in the Pyrenees Mountains, this breathtaking 
country is also rich with history and culture. Andorra has been 
a reliable partner in key votes at the United Nations and other 
important international fora. It has taken great strides in 
diversifying its economy. The embassy works closely with our 
Andorran partners on educational exchanges and trade promotion. 
If confirmed, I will be honored to represent U.S. interests in 
the Principality of Andorra and to build our long friendship 
and close bilateral cooperation.
    Distinguished Senators, I would like to thank you again for 
your time. I began by talking about our shared journey. My 
family and I have been blessed in so many ways. We owe so much 
to America. If you will honor me, I pledge to give my all to 
strengthen and advance the partnership with our long-term and 
unwavering friends, Spain and Andorra. I welcome your comments, 
questions, and a continued relationship. Thank you. And God 
bless America.
    [Mr. Buchan's prepared statement follows:]

             Prepared Statement of Richard Duke Buchan III

    Thank you, Mr. Chairman, Ranking Member Murphy and distinguished 
members of the committee. And another special thanks to you, Chairman 
Johnson for your personal introduction and for your support.
    It is a great honor to appear before this distinguished committee. 
I am humbled to be President Trump's nominee to serve as the United 
States Ambassador to the Kingdom of Spain and the Principality of 
Andorra. I am deeply grateful to President Trump for his confidence in 
me. If confirmed, I will work tirelessly to represent the interests of 
the United States of America, and to further enhance our strong 
partnerships with these two great nations.
    Mr. Chairman, Ranking Member Murphy and distinguished members of 
the committee, I want to start by thanking each of you for your service 
to our great nation. We need public service now more than ever, and as 
an American I want to say how much I appreciate all that you do for 
this country that we love.
    Each of us has followed a unique path to public service. As a 10th 
generation North Carolinian who grew up on a tobacco and cattle farm, I 
know that I am here because of the people and the land that nurtured 
me. I would like to recognize those in attendance here today: my 
amazing wife Hannah; my three dear children Cate, Beau and John; and my 
charming and insightful mother Betty. My father is here in spirit. I 
would also like to take a moment to remember my grandmother who taught 
me that I have two ears and one mouth and that I should use them 
accordingly. The lessons my family and community have taught me--
including the importance of hard work, of listening to and respecting 
others, of dreaming big--will continue to guide and inspire me if I am 
allowed to represent the United States of America overseas.
    If confirmed, I look forward to joining the extraordinary team from 
the State Department led by Secretary Tillerson and the many other U.S. 
agencies that work together to represent our nation around the globe. 
The staff of the U.S. Mission to Spain works diligently to serve 
American citizens, promote American business and advance U.S. 
interests. I am awed by the talent of these patriots. I also want to 
recognize their families who serve alongside them with equal honor, 
dedication and commitment. My career in international finance has 
focused on building bridges often between diverse individuals and 
groups to bring out the best in others to solve problems. I hope to 
apply those skills leading Mission Spain.
    Global engagement is vital to America's success. Our international 
relationships impact all levels of our economy, our national security 
and our shared responsibility to address the world's toughest problems. 
My three decades of work in Spain, other European countries, Latin 
America and Asia have taught me the importance of listening to and 
learning from others to forge solutions. If confirmed, this experience 
and international perspective will be vital to my role as a U.S, 
Ambassador.
    The opportunity to serve my country as U.S. Ambassador to the 
Kingdom of Spain and the Principality of Andorra is a dream come true. 
I have loved Spain since my childhood, when I first read about that 
faraway land of Don Quixote and Picasso in the World Book Encyclopedia. 
In 1980, as an eager and curious high school student, I first convinced 
my parents to let me study abroad at La Universidad de Valencia.
    At the University of North Carolina at Chapel Hill, I double 
majored in Spanish and economics, studying an entire academic year at 
La Universidad de Sevilla. In the years since, my family has worked to 
strengthen ties to Spain and Latin American countries by establishing 
The Buchan Excellence Fund, which is UNC's single largest endowment 
focused on Spanish languages, literature and culture. It embodies my 
conviction that knowledge, understanding and, above all, human 
connections, are the keys to success in business, diplomacy and life. 
One of our Fund's hallmark projects is 21st Century Pen Pals, a video 
exchange program between American and Spanish schoolchildren. As a 
family we have a deep appreciation, respect and love for the Spanish 
people and culture. It is only surpassed by our love for the United 
States.
    Few countries are as united in history and culture as Spain and the 
United States. These centuriesold ties have only strengthened in recent 
years as Spain has become one of our chief allies in the fight against 
terrorism, and the broader effort to uphold democracy and to promote 
prosperity around the globe. We could not ask for a better partner. It 
is an alliance based on shared values, respect and collaboration.
    Sadly, Spain, like America, has faced terror attacks at home, most 
recently in Barcelona. As we share their grief, we deeply admire their 
resolve in the face of evil. And just as we do, Spain understands this 
is a global conflict, bravely committing blood and treasure to combat 
terror around the world. It is a significant contributor to NATO, EU 
and U.N. peacekeeping missions. There are currently 3,000 Spanish 
troops deployed overseas, including in the Baltics, Turkey and West 
Africa. For over 60 years Spain has been a welcoming host to our 
military, and today, we have more than 4,000 personnel based there. 
Rota Naval Station and Mor"n Air Base are essential for major coalition 
operations in Afghanistan, Iraq, Libya and West Africa. We thank the 
Spanish government and people for their support. If confirmed, I will 
work to strengthen these historic ties as we confront our common 
enemies.
    The Trump administration is keenly aware that these efforts involve 
not just the military but law enforcement as well; and it is 
appreciative of Spain's work. We rely on Spain to help us track and 
apprehend foreign fighters. Spanish authorities have also worked 
closely with the DEA to battle the scourge of drugs. If confirmed, I 
will enhance this robust cooperation.
    As I know first-hand from my years as a global investor, Spain is a 
vital economic partner. The United States and Spain generated $24 
billion in two-way goods trade in 2016. Spain is our 9th largest source 
of foreign direct investment. Its total capital investment in the U.S. 
exceeds $72 billion; U.S. subsidiaries of Spanish firms employ more 
than 80,000 U.S. workers in financial services, construction, 
alternative energy, tourism and consumables. My career has been built 
on finding and pursuing opportunities. With Spain's economy predicted 
to grow at over three percent this year, if confirmed, I will strive to 
increase Spanish investment in the U.S. and to increase opportunities 
for U.S. businesses in Spain.
    Our human connections to Spain are deep and meaningful, stretching 
back to before the founding of our Republic. They remain strong today 
because of our shared values and interests. Over two million Americans 
traveled to Spain last year to explore its rich culture and beautiful 
landscape. Approximately 770,000 Spaniards visit the U.S. each year, 
spending about $1.7 billion. Over 28,000 Americans study in Spain each 
year and around 6,600 Spaniards study in the U.S. More than 200,000 
Americans live in Spain. If confirmed, the safety and security of these 
American citizens will be a top priority.
    We can also rely on Spain to share our broader geopolitical 
interests. Spain has been a reliable backer of EU sanctions against 
Russia and supports implementation of the Minsk agreement even as it 
shares our desire to find areas of common ground with Russia where 
appropriate. Spain is a strong supporter of tough, effective sanctions 
enforcement, and recently took action to enhance pressure on North 
Korea. Spain is also an important partner in seeking democratic reforms 
in Venezuela, and remains a strong voice within the EU for sanctions 
and other measures. If confirmed, I will vigorously represent our 
policies to insure that the United States and Spain continue to work 
together closely.
    While I have spoken much of Spain, if confirmed, I will also 
represent the United States before the Principality of Andorra. 
Situated in the Pyrenees Mountains, this breathtaking country is also 
rich with history and culture. Andorra has been a reliable partner in 
key votes at the United Nations and other important international fora. 
It has also advanced its fight against money laundering and is 
diversifying its economy. These steps have already borne fruit in a 
revitalized and increasingly outward-looking market. The Embassy works 
closely with our Andorran partners on educational exchanges and trade 
promotion. If confirmed, I will be honored to represent U.S. interests 
in the Principality of Andorra and to build on our long friendship and 
close bilateral cooperation.
    Distinguished Senators, I would like again to thank you for your 
time. I began by talking about our shared journey. My family and I have 
been blessed in so many ways. We owe so much to America. If you will 
honor me, I pledge to give my all to strengthen and advance the 
partnership with our long-term and unwavering friends, Spain and 
Andorra. I welcome your comments, questions and a continued 
relationship. Thank you. And God bless America.


    Senator Johnson. Thank you, Mr. Buchan. We would all do 
well to heed your grandmother's advice.
    Our next nominee is Mr. Richard Grenell, and Mr. Grenell is 
the President's nominee to be U.S. Ambassador to Germany. Mr. 
Grenell is a foreign policy writer and commentator. He founded 
the international consulting firm, Capital Media Partners, in 
2010. For nearly 2 decades, he has served as the primary 
communications advisor for public officials at the local, 
State, federal, and international levels, as well as for a 
Fortune 200 company. Mr. Grenell is the longest-serving United 
States spokesman of the United States having served four U.S. 
Ambassadors. Mr. Grenell?

 STATEMENT OF RICHARD GRENELL, OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
           AMERICA TO THE FEDERAL REPUBLIC OF GERMANY

    Mr. Grenell. Thank you, Mr. Chairman and Ranking Member, 
and members of the committee.
    First, let me say that I greatly appreciate the time and 
commitment you all have made to serve the American people. I am 
thankful for the sacrifices you and your families have made 
throughout your tenure in public office.
    I would also like to express my gratitude to President 
Trump for his confidence in me. I am honored and humbled to be 
here today.
    The United States truly is the land of opportunity. The 
fact that I sit before you all today is a testament to this 
country's outstanding potential. This country has provided me 
with every opportunity, from my days growing up in western 
Michigan to the life I have built with my partner in 
California. I owe so much to our great Nation.
    With your consent, I pledge to return the favor. I pledge 
to serve this country and its interests with honor and 
distinction. I pledge to respect its Constitution, and I pledge 
to uphold its values, spreading our deeply-held commitment to 
democracy, freedom, and human rights. With your consent, I will 
commit myself to the interests of this great Nation on behalf 
of all Americans as the Ambassador to the Federal Republic of 
Germany.
    All of us owe a great deal to those who helped us along the 
way. I am here today with my partner of 15 years, Matt Lashey. 
I want to publicly thank Matt for his many sacrifices, but most 
of all, for his incredible love and support. Throughout every 
challenge and opportunity that I have faced, including cancer, 
Matt has supported and encouraged me every step of the way. I 
would not be able to serve the President nor the American 
people without Matt's commitment by my side. Thank you.
    I must also add a thank you to my father, who would have 
been sitting right next to Matt if he were alive today, and to 
my mom watching from Michigan.
    If confirmed, I would be honored to once again have the 
opportunity to serve at the State Department. For 8 years, I 
served on the Executive Management Team at the United States 
Mission to the Europe, serving at the pleasure of four 
different--in fact, very different--U.S. Ambassadors.
    I know personally how stressful the arrival of a new 
ambassador can be for embassy and consulate staff. With your 
consent, I look forward to making that transition a smooth and 
enjoyable process for the many courageous and patriotic 
Americans serving their country throughout Germany.
    If confirmed, I will seek to deepen and strengthen the 
historic relationship between Washington and Berlin. Our two 
great nations share an unbreakable bond, and I look forward to 
strengthening these ties while championing the values of 
diversity, transparency, and fairness. In addition to the 
embassy in Berlin and the five consular offices, Germany is 
home to more than 30,000 American men and women serving in the 
U.S. military. If confirmed, I will make their safety and 
security a top priority.
    This past Sunday, the German people went to the polls and 
exercised their right to a representative government in a free 
and fair election. Chancellor Merkel is now negotiating to form 
a new government. Whatever the makeup of the new German 
governing coalition, I look forward to representing the 
American people as we deepen our powerful and unbreakable bond 
with the German people.
    If confirmed, I commit to broadening cooperation 
surrounding our shared goals of security and prosperity. As we 
seek to remain competitive and safe in an ever-changing world, 
we must look to strengthen those elements of friendship which 
have so greatly benefited both nations. We must increase our 
trade and economic relationships, expand our information 
sharing, and find new, innovative ways to strengthen our 
alliance and further the interests of peace around the world.
    But knowing that freedom is not free, I will also commit to 
working with the Chancellor and the new governing coalition to 
increase the pace at which Germany moves to meet its 
commitments to NATO. But in doing so, I will reinforce to the 
German people our Nation's commitment to a strong, united West. 
No other nation will disrupt this important bond that we share.
    I am honored to be here today at the pleasure of the 
President, and I look forward to answering your questions and 
hearing your suggestions.
    [Mr. Grenell's prepared statement follows:]


                 Prepared Statement of Richard Grenell

    Chairman Johnson, Ranking Member Murphy, and members of the 
committee, first, let me say that I greatly appreciate the time and 
commitment you all have made to serve the American people. I am 
thankful for the sacrifices you and your families have made throughout 
your tenure in public office.
    I would also like to express my gratitude to President Trump for 
his confidence in me. I am honored and humbled to be here today.
    The United States truly is the land of opportunity. The fact that I 
sit before you all today is a testament to this country's outstanding 
potential. This country has provided me with every opportunity, from my 
days growing up in midwestern Michigan to the life I've built with my 
partner in California, I owe so much to this great nation.
    With your consent, I pledge to return the favor. I pledge to serve 
this country and its interests with honor and distinction; I pledge to 
respect its constitution; and I pledge to uphold its values, spreading 
our deeply-held commitment to democracy, freedom, and human rights. 
With your consent, I will commit myself to the interests of this great 
nation, on behalf of all Americans, as the Ambassador to the Federal 
Republic of Germany.
    All of us owe a great deal to those who helped us along the way. I 
am here today with my partner of 15 years, Matt Lashey. I want to 
publicly thank Matt for his many sacrifices, but most of all, for his 
incredible love and support. Throughout every challenge and 
opportunity, Matt has supported and encouraged me every step of the 
way. I would not be able to serve the President and the American people 
without Matt's commitment and help.
    I must also add a thank you to my father, who would have been here 
sitting right next to Matt if he were alive today. I am so thankful for 
all my loving family members, who are watching today's proceedings from 
Michigan, California, Minnesota, and New Jersey.
    If confirmed, I would be honored to once again have the opportunity 
to serve at the State Department. For eight years, I served on the 
Executive Management Team at the United States Mission to the United 
Nations, serving at the pleasure of four different--in fact, very 
different-- U.S. Ambassadors.
    I know personally how stressful the arrival of a new Ambassador can 
be for Embassy and Consulate staff. With your consent, I look forward 
to making that transition a smooth and enjoyable process for the many 
courageous and patriotic Americans serving their country throughout 
Germany.
    If confirmed, I will seek to deepen and strengthen the historic 
relationship between Washington and Berlin. Our two great nations share 
an unbreakable bond, and I look forward to strengthening these ties 
while championing the values of diversity, transparency, and fairness. 
In addition to the Embassy in Berlin and the five Consular Offices in 
Frankfurt, Munich, Dusseldorf, Hamburg and Leipzig, Germany is also 
home to more than 30,000 American men and women serving in the U.S. 
military. If confirmed, I will make their safety and security a top 
priority.
    This past Sunday, the German people went to the polls and exercised 
their right to a representative government in a free and fair election. 
Chancellor Merkel is now negotiating to form a new government. Whatever 
the makeup of the new German governing coalition, I look forward to 
representing the American people as we prepare deepen our powerful and 
unbreakable bond with the German people.
    As Ambassador, I would commit to broadening cooperation surrounding 
our shared goals of security and prosperity for both nations. As we 
seek to remain competitive and safe in an everchanging world, we must 
look to strengthen those elements of friendship which have so greatly 
benefited both nations. We must increase our trade and economic 
relationships, expand our information sharing, and find new, innovative 
ways to strengthen our alliance and further the interests of peace 
around the world.
    But, knowing that freedom is not free, I will commit to working 
with the Chancellor and the new governing coalition to increase the 
pace at which Germany moves to meet its commitments to NATO.
    But in doing so, I will reinforce to the German people our nation's 
commitment to a strong, united West. No other nation will disrupt the 
important bond we share with one of our strongest, most dependable 
global allies.
    I am honored to be here today at the pleasure of the President, and 
I thank you for your time. I look forward to answering your questions 
and hearing your suggestions.


    Senator Johnson. Thank you, Mr. Grenell.
    Our next nominee is Ms. Jamie McCort. Ms. McCourt is the 
President's nominee to be the U.S. Ambassador to France. Ms. 
McCourt is an entrepreneur, an attorney, and has founded 
leading entrepreneurial enterprises in Los Angles and Boston. 
She is a former co-owner, President and CEO of the Los Angeles 
Dodgers. She also serves as an adjunct professor at the UCLA 
Anderson School of Management. Ms. McCourt possesses a unique 
global perspective, having lived and worked both domestically 
and abroad in numerous industries, including sports, law, 
finance, education, and real estate. Ms. McCourt?

  STATEMENT OF JAMIE McCOURT, OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
 AMERICA TO THE FRENCH REPUBLIC, AND TO SERVE CONCURRENTLY AND 
WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                     PRINCIPALITY OF MONACO

    Ms. McCourt. Thank you, Chairman Johnson, Ranking Member 
Murphy, and members of the committee. It is my great honor to 
be here today as President Trump's nominee to be the United 
States Ambassador to France and Monaco. I am extraordinarily 
grateful to the President for this opportunity to serve the 
American people as his envoy to our oldest and certainly one of 
our closest allies.
    Knowing I have not made this journey alone, I would like to 
take a moment to express my gratitude to my parents who are 
first-generation Americans, born and raised in Baltimore, 
Maryland, as was I, and to my four best start-ups, my four 
boys, Drew, Travis, Casey, and Gavin, two of whom are here 
today.
    As the first person in my family to attend college, I 
received a B.S. in French here at Georgetown University with a 
year at La Sorbonne in Paris, a J.D. from University of 
Maryland School of Law and ultimately an M.S. in management 
from the MIT/Sloan School of Management. And as you said, I 
have been an adjunct professor teaching leadership at UCLA/
Anderson Business School of Management. I obviously believe 
education is the great equalizer.
    I believe in the opportunity to succeed through hard work, 
determination, and initiative. In other words, I believe in the 
American dream. Therefore, I am deeply honored to be here and 
incredibly touched to have the opportunity, if confirmed, to 
give back to and serve my country.
    This year marks the 100th anniversary of the U.S. entry 
into World War I. Beginning in 1917, American and French 
soldiers fought side by side and died together in defense of a 
free and peaceful Europe.
    President Trump's visit to Paris in July as President 
Macron's guest of honor during the National Day celebrations, 
commemorating the centennial anniversary of this U.S. entry 
into the war, was a vivid reminder of that sacrifice in defense 
of our common values.
    A few decades later, in 1941, the United States went to war 
again, and Americans once more fought and died to defend and 
liberate European allies. One of those soldiers was my uncle, 
killed in action at the age of 27, leaving behind two young 
babies.
    Having grown up listening to my mostly stoic father 
tearfully reminisce whenever he spoke of his older brother, and 
having been extremely close to my grandmother, I have always 
felt a special connection to Europe and to the purpose for 
which my uncle gave his life. The thought of serving as an 
ambassador in Europe, therefore, is particularly personal for 
me and my family, and it would be the greatest honor of my life 
if confirmed for this position.
    Following World War I and World War II, America's alliance 
with France has only grown stronger as we, together with France 
and our other allies, founded NATO to ensure a secure, free, 
and prosperous future for our descendants.
    If confirmed, I pledge to do everything in my power to 
continue to nurture our crucial alliance with France, and 
together we will address challenges to our global security, 
including ensuring a strong and capable NATO alliance, 
combating terrorism, hastening the defeat of ISIS, countering 
Russian malign influence, stepping up pressure on North Korea, 
and improving nuclear security.
    In fact, France is our most capable and willing ally in 
support of the Global Coalition to Defeat ISIS in Syria and 
Iraq through air strikes, aircraft carrier deployments, and 
training of operational forces on the ground; through Defeat-
ISIS efforts in Libya; and through its lead in sub-Saharan 
Africa where it combats violent extremism and illicit 
trafficking through Operation Barkhane.
    France is in support of countering Iran's malign activities 
including development of nuclear weapons capabilities and 
advocates for security policy reform at the EU level, leading 
efforts to tighten boarder security and promote better 
information sharing among member states to meet evolving 
terrorist threats. France, along with Germany, participates in 
the Normandy format to negotiate a peaceful resolution to the 
conflict in eastern Ukraine.
    As well, France is a key partner in America's prosperity, 
and if confirmed, I will work assiduously to promote American 
exports to France and French investments in the United States.
    Today, France is the fifth largest investor in the U.S. and 
our eighth largest trading partner. French investment in the 
U.S. supports approximately 574,000 jobs. Over $1 billion in 
commercial transactions take place every single day between our 
two countries.
    As someone who has long been involved in business ventures 
myself, including as the co-owner, President and CEO of the Los 
Angeles Dodgers, as well as through my investments in high-
value real estate, biotech ventures, technology start-ups, and 
even art, I would like to further expand this relationship to 
provide new business opportunities.
    Additionally, if confirmed, I look forward to nurturing our 
relationship with the Principality of Monaco and working 
together with His Serene Highness Prince Albert and his 
government to further our joint objectives. Monaco has been a 
trusted partner for the United States in advancing our shared 
interest in a secure and prosperous world.
    Moreover, the Department of State's highest calling is to 
protect U.S. citizens abroad. The horrific terror attacks in 
France that claimed the lives of innocent people and injured 
countless others, including Americans, are a stark reminder of 
our overarching duty to protect our citizens.
    If confirmed, I will consider my primary responsibility to 
ensure the safety and security of the embassy community and of 
all U.S. citizens in France and Monaco. I assure you our 
mission and its staff will have no higher priority.
    If confirmed, I will lead the mission to do everything 
possible to support French efforts to prevent another tragedy. 
To this end, I will seek to deepen U.S.-French counterterrorism 
cooperation and information sharing so that violent extremists 
in Europe will not be able to threaten the U.S. homeland.
    In closing, the U.S. partnership and alliance with France 
is a cornerstone of our cooperation with Europe.
    Drawing on the strength of the entire U.S. Government, 
including the dedicated officers of our U.S. Foreign Service 
and the many talented individuals representing multiple 
agencies of our government in France, I would, if confirmed, 
work every day to advance our mutual interests in a secure and 
prosperous world.
    Thank you again for the opportunity to appear before you 
today. I look forward to answering your questions, and if 
confirmed, I look forward to working with all of you to further 
enhance the relationship between the United States and France 
and Monaco.
    [Ms. McCourt's prepared statement follows:]


                  Prepared Statement of Jamie McCourt

    Chairman Johnson, Ranking Member Murphy, and members of the 
committee, it is my great honor to be here today as President Trump's 
nominee to be the United States Ambassador to France and Monaco. I am 
extraordinarily grateful to the President for this opportunity to serve 
the American people as his envoy to our oldest and certainly one of our 
closest allies.
    Knowing I have not made this journey alone, I would like to take a 
moment to express my gratitude to my parents, who are first-generation 
Americans, born and raised in Baltimore, Maryland, as was I, and to my 
four best start-ups, my four boys, Drew, Travis, Casey, and Gavin.
    As the first person in my family to attend college, I received a 
B.S. in French at Georgetown University, with a year at La Sorbonne in 
Paris, a J.D. from University of Maryland School of Law and ultimately 
a M.S. in Management from the MIT/Sloan School of Management and having 
been an adjunct professor teaching leadership at UCLA/Anderson School 
of Management, I obviously believe education is the great equalizer.
    I believe in the opportunity to succeed through hard work, 
determination and initiative; in other words, I believe in the American 
Dream. Therefore, I am deeply honored to be here and incredibly touched 
to have the opportunity, if confirmed, to give back to and serve my 
country.
    This year marks the 100th anniversary of the U.S. entry into World 
War I. Beginning in 1917, American and French soldiers fought and died 
together in defense of a free and peaceful Europe.
    President Trump's visit to Paris in July as President Macron's 
guest of honor during the National Day celebrations, commemorating the 
centennial anniversary of the U.S. entry into the war, was a vivid 
reminder of that sacrifice in defense of our common values.
    A few decades later, in 1941, the United States went to war again, 
and Americans once more fought and died to defend and liberate European 
allies. One of those soldiers was my uncle, killed in action at the age 
of twenty-seven, leaving behind two young babies.
    Having grown up listening to my mostly stoic father tearfully 
reminisce about his older brother, and having been extremely close to 
my grandmother, I have always felt a special connection to Europe and 
to the purpose for which my uncle gave his life. The thought of serving 
as an ambassador in Europe is, therefore, particularly personal for me 
and my family, and it would be the greatest honor of my life if 
confirmed for this position.
    Following World War I and World War II, America's alliance with 
France has only grown stronger as we, together with France and our 
other allies, founded NATO to ensure a secure, free, and prosperous 
future for our descendants.
    If confirmed, I pledge to do everything in my power to continue to 
nurture our crucial alliance with France, and together we will address 
challenges to our global security, including ensuring a strong and 
capable NATO alliance, combatting terrorism, hastening the defeat of 
ISIS, countering Russian malign influence, stepping up pressure on 
North Korea, and improving nuclear security.In fact, France is our most 
capable and willing ally in support of the Global Coalition to Defeat 
ISIS in Syria and Iraq through air strikes, aircraft carrier 
deployments, and training of operational forces on the ground; through 
Defeat-Isis efforts in Libya; and through its lead in Sub-Saharan 
Africa where it combats violent extremism and illicit trafficking 
through Operation Barkhane.
    France is in support of countering Iran's malign activities 
including development of nuclear weapons capabilities, and advocates 
for security policy reform at the EU level, leading efforts to tighten 
border security and promote better information sharing among member 
states to meet evolving terrorist threats. France, along with Germany, 
participates in the Normandy format to negotiate a peaceful resolution 
to the conflict in eastern Ukraine.
    As well, France is a key partner in America's prosperity, and if 
confirmed, I will work assiduously to promote American exports to 
France and French investment in the United States.
    Today, France is the 5th largest investor in the U.S. and our 8th 
largest trading partner. French investment in the U.S. supports 
approximately 574,000 American jobs. Over $1 billion in commercial 
transactions take place every day between our two countries.
    As someone who has long been involved in business ventures myself, 
including as the Co-Owner, President and CEO of the Los Angeles 
Dodgers, as well as through my investments in high-value real estate, 
biotechnology ventures, technology start-ups, and even art, I would 
like to further expand this relationship to provide new business 
opportunities.
    Additionally, if confirmed, I look forward to nurturing our 
relationship with the Principality of Monaco, and working together with 
His Serene Highness Prince Albert and his government to further our 
joint objectives. Monaco has been a trusted partner for the United 
States in advancing our shared interest in a secure and prosperous 
world.
    Moreover, the Department of State's highest calling is to protect 
U.S. citizens overseas. The horrific terror attacks in France that 
claimed the lives of innocent people, and injured countless others, 
including Americans, are a stark reminder of our overarching duty to 
protect our citizens.
    If confirmed, I will consider my primary responsibility to ensure 
the safety and security of the Embassy community, and of all U.S. 
citizens in France and Monaco. I assure you our Mission and its staff 
will have no higher priority.
    If confirmed, I will lead the Mission to do everything possible to 
support French efforts to prevent another tragedy. To this end, I will 
seek to deepen U.S.-French counterterrorism cooperation and information 
sharing so that violent extremists in Europe will not be able to 
threaten the U.S. homeland.
    In closing, the U.S. partnership and alliance with France is a 
cornerstone of our cooperation with Europe.
    Drawing on the strength of the entire U.S. Government, including 
the dedicated officers of our U.S. Foreign Service and the many 
talented individuals representing multiple agencies of our government 
in France, I would, if confirmed, work every day to advance our mutual 
interest in a secure and prosperous world.
    Thank you again for the opportunity to appear before you today. I 
look forward to answering your questions and, if confirmed, I look 
forward to working with all of you to further enhance the relationships 
between the United States and France and Monaco.


    Senator Johnson. Thank you, Ms. McCourt.
    Last but not least, our final nominee is Mr. Edward 
McMullen, Jr. Mr. McMullen is the President's nominee to be the 
U.S. Ambassador to Switzerland and Liechtenstein. Mr. McMullen 
has served in public policy, political, and business positions 
for over 30 years. He is currently President of McMullen Public 
Affairs, a full-service advertising and corporate public 
affairs company. His firm's clients have included several 
Fortune 100 companies. Mr. McMullen has been appointed to serve 
on key South Carolina statewide boards and commissions. Mr. 
McMullen?

STATEMENT OF EDWARD T. McMULLEN, JR., OF SOUTH CAROLINA, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
  STATES OF AMERICA TO THE SWISS CONFEDERATION, AND TO SERVE 
CONCURRENTLY AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
          AMERICA TO THE PRINCIPALITY OF LIECHTENSTEIN

    Mr. McMullen. Thank you, Mr. Chairman, Chairman Johnson, 
Ranking Member Murphy, and members of the committee.
    I would also like to thank Senator Graham for his kind 
introduction. He is a good friend and I am thankful he took the 
time to be here.
    It is an honor and quite humbling to be with you today as 
the President's nominee to be the U.S. Ambassador to 
Switzerland and Liechtenstein. Thank you for this opportunity 
to offer my thoughts and to answer any questions that you may 
have.
    There are many who have joined me in this journey, and I 
would like to express my love and thanks to my wife of 28 
years, Margaret Ann, who is here today; our two children, 
Thomas and Katherine are in Charleston and Los Angeles with 
career and college commitments; and my parents, in-laws, 
extended family and friends, including my Hampden-Sydney 
College professors, all of whom selflessly inspired me in ways 
that made today possible.
    I consider it a great privilege, if confirmed by the 
Senate, to represent our country in Switzerland and 
Liechtenstein to articulate the President's and Congress' 
positions on pressing international issues, and foster, at 
every opportunity, improved diplomatic relations and deeper 
economic and cultural connections. Happily, in the case of 
Switzerland and Liechtenstein, we build on a very strong 
foundation.
    In 1995, I visited Switzerland for the second time, after 
being selected to be a part of the American-Swiss Foundation's 
young leaders program. I joined an accomplished group of young 
Americans and Swiss business and political leaders who inspired 
my interest and love for this impressive country and her 
people. The program was comprehensive, and participants 
interacted directly with Swiss businesses and government, from 
the highest level CEOs to important government officials.
    Please allow me to offer a few observations about 
Switzerland. Since I come from the private sector, I will start 
with a private sector fact that I hope you will find as 
impressive as I do.
    Switzerland is the seventh largest direct investor in the 
United States, this from a country the size of Maryland and a 
population of 8 million people. This one fact tells us a lot 
about Switzerland, not least of all that the Swiss have found a 
great formula for success. But this also tells us that Swiss 
companies are creating jobs in the United States and that there 
is extensive and mutually beneficial economic activity between 
our countries, and I look forward to having the opportunity to 
build on that, if confirmed by the Senate.
    However, our ties are not only economic. Switzerland is a 
constitutional republic. Its constitution is modeled on ours. 
We share common values, including respect for rule of law and 
the notion that government is responsible to the people. 
Switzerland is neutral, but it is a natural friend because of 
the values and constitutional principles that we share. To the 
extent there are areas of dispute and conflict, we share a 
common vocabulary for its resolution.
    This is an area where the Swiss excel. In international 
relations, Swiss good offices have proved vitally important 
over and over. It is important that the U.S. work closely with 
Switzerland in addressing a wide variety of international 
challenges.
    One final observation. Switzerland is an acknowledged 
superpower in both applied and basic research. It is not an 
accident that European nuclear research entity, CERN, and its 
Hadron collider are located in Switzerland, or that the Swiss 
have shrewdly placed a research-centric consulate literally 
halfway between Harvard and MIT in Cambridge, Massachusetts. If 
confirmed, I will work to build ever closer ties between the 
United States, Swiss, and Liechtensteiner communities, 
particularly in the research area, particularly in promoting 
also apprenticeships between our three countries.
    I recognize that a key role for the U.S. Ambassador is to 
explain American foreign policy as it is defined by the 
President. Part of doing that, if confirmed, will be to reach 
out and directly communicate with Swiss officials, business 
people, and citizens. I am confident my prior experience in 
public relations and communications will prove helpful, and I 
commit to you that I will devote the time and energy necessary 
to mastering the details of my job. I also commit to ensure 
that, if confirmed, the concerns of this committee will be 
heard and respected.
    Before closing, I would like to note that, if confirmed, I 
will eagerly draw on the strength of the entire U.S. 
Government, including the devoted officers of our U.S. Foreign 
Service and the many talented individuals representing multiple 
agencies of our federal government. While serving as part of 
our mission in Switzerland, I would, if confirmed as 
Ambassador, endeavor to deepen our partnership so as to respond 
effectively to regional and global challenges.
    I am profoundly grateful for the opportunity to serve our 
great country in a new and demanding capacity. Mr. Chairman, 
members of the committee, thank you, and I would be very 
pleased to answer any questions.
    [Mr. McMullen's prepared statement follows:]


             Prepared Statement of Edward T. McMullen, Jr.

    Chairman Johnson, Ranking Member Murphy, and members of the 
committee, It is an honor and quite humbling to be with you today as 
the President's nominee to be the US Ambassador to Switzerland and 
Liechtenstein. Thank your for this opportunity to offer my thoughts and 
to answer any questions you may have.
    There are many who have joined me in this journey and I would like 
to express my love and thanks to my wife of 28 years, Margaret Ann, who 
is here today--our two children, Thomas and Katherine are in Charleston 
and Los Angeles with career and college commitments, and my parents, 
in-laws, extended family and friends including my Hampden-Sydney 
College professors, all of whom selflessly inspired me in ways that 
made today possible.
    I consider it a great privilege, if confirmed by the senate, to 
represent our country in Switzerland and Liechtenstein to articulate 
the President's and Congress' positions on pressing international 
issues, and foster, at every opportunity, improved diplomatic relations 
and deeper economic and cultural connections. Happily, in the case of 
Switzerland and Liechtenstein, we build on a strong foundation.
    In 1995, I visited Switzerland for the second time, after being 
selected to be a part of the American-Swiss Foundation's young leaders 
program. I joined an accomplished group of young Americans and Swiss 
business and political leaders who inspired my interest and love for 
this impressive country and her people. The program was comprehensive, 
and participants interacted directly with Swiss businesses and the 
government--from the highest level CEOs to important government 
officials.
    Please allow me to offer a few observations about Switzerland. 
Since I come from the private sector, I'll start with a private sector 
fact that I hope you will find as impressive as I do:
    Switzerland is the seventh largest direct investor in the U.S., 
this from a country the size of Maryland and a population of 8 million. 
This one fact tells us a lot about Switzerland, not least of all that 
the Swiss have found a great formula for success. But this also tells 
us that Swiss companies are creating jobs in the U.S. and that there is 
extensive and mutually beneficial economic activity between our 
countries; I want to help build on that.
    However, our ties are not only economic. Switzerland is a 
constitutional republic. Its constitution is modeled on ours. We share 
common values including respect for rule of law and the notion that 
government is responsible to the people. Switzerland is neutral, but is 
a natural friend because of the values and constitutional principles we 
share. To the extent there are areas of dispute and conflict, we share 
a common vocabulary for its resolution.
    This is an area where the Swiss excel. In international relations, 
Swiss ``good offices'' have proved vitally important over and over. It 
is important the U.S. work closely with Switzerland in addressing a 
wide variety of international challenges.
    One final observation--Switzerland is an acknowledged superpower in 
both applied and basic research. It's not an accident that the European 
nuclear research entity, CERN, and its Hadron collider, are located in 
Switzerland-or that the Swiss have shrewdly placed a research-centric 
consulate literally halfway between Harvard and MIT in Cambridge, 
Massachusetts. If confirmed, I will work to build ever closer ties 
between the U.S./Swiss and Liechtensteiner research communities, 
particularly in promoting apprenticeships between our countries.
    I recognize that a key role for the U.S. Ambassador is to explain 
American foreign policy as it is defined by the President. Part of 
doing that, if confirmed, will be to reach out and directly communicate 
with Swiss officials, business people, and citizens. I am confident my 
prior experience in public relations and communications will prove 
helpful and I commit to you that I will devote the time and energy 
necessary to mastering the details of my job. I also commit to ensure 
that, if confirmed, the concerns of this committee will be heard and 
respected.
    Before closing, I would like to note that if confirmed, I will 
eagerly draw on the strength of the entire U.S. government, including 
the devoted officers of our U.S. Foreign Service and the many talented 
individuals representing multiple agencies of our federal government. 
While serving as part of our Mission in Switzerland, I would, if 
confirmed as Ambassador, endeavor to deepen our partnership so as to 
respond effectively to regional and global challenges.
    I am profoundly grateful for the opportunity to serve our great 
country in a new (and demanding) capacity. Mr. Chairman, members of the 
committee, thank you, and I would be pleased to respond to any 
questions.


    Senator Johnson. Thank you, Mr. McMullen.
    I want to thank all of you for your opening statements.
    I have got just kind of a basic opening question here, and 
I will start with Congressman Hoekstra. If confirmed for this 
position, can you tell me really what your top priority will be 
as Ambassador to the country you will be representing?
    Mr. Hoekstra. The top priority would be making sure that 
the post in The Hague is a very effective, functioning team, to 
make sure that the other priorities that we are working on, 
whether it is economic cooperation and development between us 
and The Netherlands, national security cooperation, and those 
types of things, fighting the war on extremism, that we can 
effectively execute each of those three missions. But the 
bottom line is we need an effective team working together in 
The Hague.
    Senator Johnson. Mr. Buchan?
    Mr. Buchan. Thank you, Senator, for that question.
    As we all know, Spain has been a tremendous ally for a very 
long time to America.
    My priorities would be, first and foremost, to protect 
American people in Spain. Then security and economic prosperity 
are two areas I would like to work on, as well as cultural and 
arts. But I do think there is a lot to do in both security and 
particularly economic prosperity, and those would be my two 
primary focuses, as well as anything else the administration 
would ask me to do.
    Senator Johnson. Mr. Grenell?
    Mr. Grenell. Thank you, Senator.
    My top priority is going to be security and safety for 
embassy and consular staff, first and foremost. After that, I 
think the German-U.S. relationship is so strong that I want to 
further the ties in every area, whether it be economic 
prosperity, information sharing, human rights. I think I am 
lucky in that this bond that we have with the Germans is very 
strong, and I want to make sure that we make it even stronger.
    Senator Johnson. Ms. McCourt?
    Ms. McCourt. For certain, the very top priority is to 
ensure the safety of those in the mission and then all 
Americans in all of France, and also to prevent, to the extent 
possible, and to work towards preventing anything happening to 
the U.S. homeland.
    That said, it is obvious counterterrorism and countering 
global security issues is of the utmost importance, including 
supporting NATO, and thereafter promoting trade and investment, 
which I know is high on the administration's agenda.
    Senator Johnson. Mr. McMullen?
    Mr. McMullen. Senator, I think continuing to build on the 
Swiss-Liechtenstein-U.S. relationship is critical. And in doing 
that, if you look at the economic side with jobs, the President 
has made job creation a major component of his administration. 
Swiss investment in the U.S. with 480,000 jobs, many of which 
are high tech, great jobs that pay well over $100,000 in 
salary--I think this is an area that we really can expand. And 
I look forward to Swiss business, Liechtensteiner business, and 
investing in the U.S., continuing that investment and building 
on it.
    Senator Johnson. So let us go down the line again in terms 
of what is the top area of cooperation economically with those 
countries? Congressman Hoekstra?
    Mr. Hoekstra. Well, the Dutch cooperate with us on a number 
of areas, in terms of the economy, whether it is agricultural 
issues, technology issues, water management, and those types of 
things. Those are the areas where we have cooperated and I 
think provide an opportunity for additional investment, 
additional exploration.
    Senator Johnson. Mr. Buchan?
    Mr. Buchan. Thank you, Senator.
    You know, the Spaniards have been very active investing in 
banking, construction, consumables, et cetera. It would be my 
goal to continue to work along those industries. And I think in 
particular there is an opportunity in energy, and that is an 
area that I would really like to pursue.
    Senator Johnson. Mr. Grenell?
    Mr. Grenell. I would say the first two are energy, 
specifically liquid natural gas, and expand the auto trade. As 
you know, Senator, there is an enormous German trade surplus, 
and I look forward to the Commerce Department coming out with a 
report later on that trade deficit report, which would give us 
a lot more information.
    Senator Johnson. Ms. McCourt?
    Ms. McCourt. France has a broad goods and services reach, 
and I would say that certainly it reaches into the air space 
and the military space, the IT space, the pharma space, and 
definitely increasingly in the energy space.
    Senator Johnson. Mr. McMullen?
    Mr. McMullen. Mr. Chairman, I think trade with Switzerland, 
for a small country the size of Maryland, is pretty impressive. 
And when you look at the types of trade, it is pharmaceuticals, 
aerospace, gold, chemicals, and something that Americans seem 
to enjoy, their Rolex and their Patek Philippes. So I think 
that is one of the great Swiss assets that we have got, and it 
is a major trading opportunity for the U.S.
    Senator Johnson. Well, thank you. I have efficiently used 
my time. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    I enjoyed all of your opening comments. Again, I appreciate 
your willingness to serve.
    Ms. McCourt, let me start with you. Russia used very 
familiar cyber espionage tactics to try to manipulate France's 
recent national election, tactics that we saw employed here in 
the United States in 2016. Unfortunately, nearly half of U.S. 
voters today do not believe that Russia interfered in the 2016 
election, largely because our President regularly calls reports 
of that interference a hoax.
    So I wanted to ask you two questions. One, what is your 
personal view of the extent of Russia's interference in the 
2016 election? Do you believe it happened? And if so, what do 
you think that we can do with France to make sure that it does 
not happen again either here or in France?
    Ms. McCourt. Thank you for your question, Senator.
    By all accounts from multiple intelligence agencies, it 
appears that Russia attempted to interfere with our elections. 
That is my personal view.
    As to what can be done about it in terms of working with 
France, I believe we need to leverage our information sharing. 
We need to share watch lists. We need to deal with anything 
that comes across our way that further enhances relationships 
so that we can figure out where these things are coming from. 
And the cyber issue is a huge issue.
    Senator Murphy. Thank you for that response.
    I would add to that having a coordinated strategy of 
repercussions for Russian individuals and Russian entities that 
have tried to interfere in both of our elections. I think that 
will be a key point of cooperation with the French as well.
    Mr. Grenell, you and I had the chance to talk about this 
subject, and I want to bring it up in open session. You have 
had a lot of experience that prepares you for this very 
important role of being Ambassador to one of the United States' 
key transatlantic allies. But there are few professions that 
probably prepare you worse for being a diplomat than being a 
cable news commentator. You, in that role or connected to that 
role, have said some very inflammatory things that will be 
brought with you, whether you like it or not, as you seek to 
represent the United States of America in Germany.
    In particular, there is a litany of very derogatory 
comments about women's personal appearances in your portfolio. 
I am not going to read through them, but they include 
derogatory comments about personal appearances of Hillary 
Clinton, Madeleine Albright, Calista Gingrich, Rachel Maddow.
    Do you regret making these statements? And do you 
understand the concern some of us have about these inflammatory 
statements coming with you as you seek to represent the United 
States as a whole in Germany?
    Mr. Grenell. Thank you, Senator, for that question and for 
the chance and opportunity to speak to it.
    First of all, let me say I never want to be mean. I am not 
that guy. It is certainly never my intentions to hurt anyone's 
feelings. Anybody who knows me knows that I am a very caring 
person and very sensitive person. And I also appreciate good 
humor. Unfortunately, there are times where what was intended 
to be humorous turned out to be not so humorous.
    Again, that was never my intention, and I regret that and 
want to make sure that you understand that I view my career in 
two different phases: one, for almost 16 years as a U.S. 
official working for State and local in international work. 
That includes 8 years at the UN. In that capacity, I understood 
that when you are speaking as a U.S. official, it is not your 
opinion that you are pushing, but it is a well thought-out U.S. 
policy. I can simply say that going back into the State 
Department, I look forward to taking on that role again where 
it is a well thought-out U.S. policy not my personal opinion.
    Senator Murphy. Thank you, Mr. Grenell.
    Permit me to ask one quick question of Mr. Buchan.
    You rightly referenced the important counterterrorism work 
that we have to do with Spain. Do you have any thoughts in your 
preparation for this role about the importance of information 
sharing within Europe with respect to terrorist threats and the 
importance of the United States pressing the Europeans to talk 
to each other in a much more coordinated way to make sure that 
the information that we are ultimately getting is the result of 
a collaborative process. The bilateral relationship is 
important, but pressing our European partners to work better in 
coordination, especially those like Spain that are under a 
direct counterterrorism threat, seems important as well. I 
wanted to raise that issue with you to see if you had 
considered it.
    Mr. Buchan. Thank you, Senator Murphy.
    What I do know is that the information sharing between 
Spain and the United States is quite strong. Again, they have 
been a tremendous ally and friend. So I believe that 
relationship is there. Certainly in all situations, there is 
room for improvement.
    To the extent that the administration or Senators such as 
yourself view this as a high priority, of course, I will do my 
best to execute on that.
    As far as specifics between Spain and the rest of Europe, 
candidly I have not had privy to that information at this point 
in time. But if it is important to people in the administration 
and people in this room, we certainly will make it a top 
priority.
    And again, thank you for that question.
    Senator Murphy. Thank you.
    Thank you, Mr. Chairman.
    Senator Johnson. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And congratulations to each of the nominees. Not only is it 
a real honor to carry the title of ambassador, should you be 
confirmed, but you are also going to work with great people.
    And I will tell you something that I always do when I 
travel. I go to missions and I ask to meet with first and 
second tour Foreign Service officers without the Ambassador 
present. So these are people who are new in their career at the 
State Department. This is what I say to them. I say 
congratulations. You have gotten a job that is really hard to 
get. What will make the difference between you staying at this 
job and making a career out of it or leaving after a few years? 
And then I do not have to say anything more, and we have about 
a 2-hour discussion that is fascinating. Not anybody has yet 
said you got to change out my ambassador. That is going to be 
make or break.
    They instead bring up all kinds of issues. And a lot of 
them kind of go to an issue that I hope you will all be mindful 
of if you are confirmed, and that is they say to me some 
version of this. It was really hard to get this job, and I had 
to go through pretty intense security vetting to do it. And now 
I am in the job but I get micromanaged. So like to order five 
pencils, I have to take a lie detector test. If you trusted me 
enough to vet me to do the job, trust me enough to do the job. 
And I think you have this great group of people. The sky is the 
limit in terms of of what they can do and the effectiveness, 
and they sometimes feel really weighted down by the kinds of 
things that often happen in large organizations. So just please 
recognize the quality of the people you have in your various 
posts and let them be all they can be.
    I am going to confine my question to Mr. Buchan because 
this U.S.-Spain relationship is really important to me too, and 
you have a really great background for this position. There is 
a 501(c)(3) organization called the U.S.-Spain Council that was 
created in the 1990s, and the tradition is that the U.S. chair 
is a Senator and the Spanish chair is an industrialist. 
Currently I am the U.S. chair, completing my fourth and final 
year as chair. The Spanish chair, Jose Manuel Entrecanales, is 
the CEO of Acciona, which is a large Spanish infrastructure 
firm.
    It was created at a time when the relationship had 
challenges. Spain was having fairly common street protests and 
riots about whether they should stay in NATO. And over the 
course of the 25 years of the organization, it has really built 
up to be a very effective organization. We just had our annual 
meeting this past weekend in Williamsburg, and we had Secretary 
Mattis talking about the future of NATO. We had the Spanish 
American chef Jose Andres talking about shared culture. It has 
really turned into something strong.
    The U.S. Ambassador to Spain always participates. The King 
and Queen of Spain often participate. And so I would just hope 
to see you in your capacity as Ambassador, Mr. Buchan, should 
you be confirmed, in future years' meetings.
    And then really just one question. I think it is an 
opportunity, a really important one, for the U.S. and Spain 
right now. I know Prime Minister Rajoy was with the President 
yesterday in the Oval Office. By all accounts, that meeting 
went well.
    And the opportunity that I think is a shared one is Puerto 
Rico. So obviously, Spain and the United States both have deep, 
deep historical connections to Puerto Rico. Spain--through the 
settlement in the 1530s, Puerto Ricans are Americans and have 
been since the early 1900s. Puerto Ricans volunteer and serve 
in our military to a degree virtually more than just about any 
other State, patriotic Americans who are suffering one of the 
worst humanitarian crises in any part of this country probably 
in our history.
    There is going to be a tremendous need to rebuild Puerto 
Rico, infrastructure, hospitals, electricity, ports, airports, 
roads. Spaniards are excellent at infrastructure. The chair of 
the U.S.-Spain Council is an infrastructure guy. One of the 
three topics that we had this weekend in Williamsburg was about 
infrastructure. Virginia does public-private partnerships in a 
really interesting way. I did it when I was Governor. And often 
it was the Spaniards who were the contracting firms and the 
Australians who would figure out how to finance the deals, and 
we would do these projects in Virginia.
    I think there is a critical humanitarian need to really be 
firm in our commitment to the Americans in Puerto Rico and to 
help rebuild. And I think the Spaniards not only have expertise 
but have a real deep cultural interest in this, and there might 
be some wonderful opportunities right out of the gate for a 
U.S. Ambassador to work together to help forge partnerships to 
do it. And I just wanted to put that on the table and say I 
think there is going to be a great opportunity immediately, and 
I would love to work together with you on a matter like that, 
should you be confirmed.
    Mr. Buchan. Thank you, Senator Kaine.
    I too agree that there is a great opportunity here. We can 
certainly address the human needs. It is all about building 
bridges in opinion and making the human connection. And this 
sounds like a great idea. We know that some of the largest 
construction and infrastructure firms in the world are based in 
Spain. We also know that some of those are based in the United 
States. So I look forward to working with you and whomever else 
on this fantastic idea. And thank you for that.
    Senator Kaine. Great. Thank you so much.
    Thanks, Mr. Chair.
    Senator Johnson. Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    And congratulations to each of you on this nomination.
    Jamie McCourt I have known for decades and her background 
is very diverse. She brings a life of very, very interesting 
and I think instructive life experience that can help her be a 
very good Ambassador for our country to France. One of her 
sons--she talked about her four sons, her start-ups. One of 
them was an intern in my office 10 years ago. So I have known 
the family for a long time.
    So I guess my first question I will just throw to you 
because you are arriving just as President Macron is really 
beginning his presidency and saying that he wants to 
reinvigorate the EU, that he wants to reexamine its 
institutions. People on this committee do believe in a strong 
EU-American partnership. It has been basically the cornerstone 
of civilization since World War II.
    Can you talk about what you think the role of the United 
States can be in partnering with France to strengthen the EU in 
the years ahead?
    Ms. McCourt. First, Senator, thank you for those wonderful 
words. I hope I live up to it, should I be confirmed.
    And second, yes, I would love to address your question. I 
think where we share a lot of value and values is with free 
trade, and I know that President Macron is a strong advocate of 
free trade within the EU and puts a lot of pressure on others 
in the EU in that regard, and I think that is incredibly 
helpful.
    I think that there is a great respect for goods trade, 
services, capital, and all of the things that we also care 
about. And I think that it is very important that we work 
together to ensure that there is a very healthy trade between 
the EU and the United States.
    Senator Markey. Thank you.
    Mr. Grenell, Russia has an increasingly aggressive military 
posture. They are in violation of the INF agreement. This 
increased tension is something that is obviously going to 
require U.S. and German partnership in order to deal with this 
changing Putin era of defense view of our relationship. Can you 
give us some sense of how you perceive the INF issue, what you 
would encourage the Germans to do in response to those 
violations, and how you might think that we could achieve that 
in a partnership between our country and the Germans?
    Mr. Grenell. Thank you, Senator, for that question.
    I would first start by saying I spent 8 years at the U.N. 
working with the EU-3 and Germany very closely. So the Germans, 
the British, and the French I think are very keen on working 
together. Despite the issues that the EU are going through 
right now, I think we can rely on those three to really 
confront the Russia issue. I have been very encouraged by 
Chancellor Merkel even through this election with the possible 
coalition that is forming. They are all united, no matter what 
the coalition comes out to be, that Russia must be stopped, 
that the NATO alliance, that the European alliance is crucial. 
I look forward to working with the Germans to strengthen that. 
I know we have had some issues and I know Congress has some 
very specific issues on NATO spending, and I look forward to 
working with the Germans to increase that as well.
    Senator Markey. Could you speak specifically to this INF 
issue, however, which is a cornerstone of security in the 
European theater?
    Mr. Grenell. Sure. Senator, I look forward to working with 
the team at the German mission. I look forward to working with 
the State Department on this issue. This is one issue that we 
have not been fully briefed on, and what I would want to do is 
have a very well thought-out U.S. policy on that.
    Senator Markey. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Markey.
    Senator Murphy does have a couple extra questions.
    Senator Murphy. Thank you very much, Mr. Chairman. Just a 
few additional questions.
    Congressman Hoekstra, good to see you. I would like to 
think that I set a trend here. I got to introduce my 2012 
Senate opponent before the committee that was considering her 
nomination to be the Administrator of the SBA. And so I was 
glad to have Senator Stabenow here with you today giving you a 
similar ringing endorsement.
    Here is my only question for you. I mentioned in my opening 
remarks that our unique partnership with Europe--and The 
Netherlands is clearly an important ally in Europe--is based on 
interests and values. And The Netherlands have some of the most 
progressive laws on LGBT rights in the world. Your personal and 
political views on that subject might not match up with those 
that are enshrined in the law there. Can you just speak to that 
issue and the concern that some of us may have about sending an 
ambassador who may bring with him or her a record on an issue 
that is very important your host country views you may not 
share?
    Mr. Hoekstra. Yes. I mean, the Dutch and the United States 
share a tradition of defending human rights, the value, the 
dignity of every individual. And so while my personal views may 
differ from where the Dutch have moved in terms of their public 
policy, the bottom line is my personal respect and value that I 
have for every single human being I think matches the Dutch 
very, very well. We may differ on some political processes or 
some political implementation of those values, but the 
fundamental respect for every individual is consistent. If 
confirmed, my job as the Ambassador is not to go and try to 
influence those. It is to respect the decisions that they have 
made, that they believe are most appropriate for their country. 
And I will respect their decisions.
    Senator Murphy. Well said. Thank you.
    Mr. Grenell, one final question on policy not on style. But 
one of the constant challenges in our relationship with Germany 
is making sure that they both walk the walk and talk the talk 
on the issue of energy independence. Ultimately Russia's 
ability to manipulate continental affairs in Europe is related 
to their continued ability to send large amounts of petroleum 
products into Europe. And one of the ways they are seeking to 
tighten that grip is a new pipeline called Nordstream II that 
would essentially allow them to circumvent Ukraine, thus 
frankly increasing their leverage over Ukraine, decreasing 
Ukraine's potential leverage over Russia.
    I just want to ask if you are familiar with this product 
and how you see advocacy on the issue of stopping Nordstream II 
as part of your mission.
    Mr. Grenell. Thank you, Senator, for that question.
    Yes, I am familiar with this issue and I view it very much 
as a security issue. I think we can really make the case that 
having a broader energy policy for the Germans and for all of 
Europe is better for security. I look forward to making that 
case, working with the State Department. And I know the mission 
in Berlin is focused on it as well.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Johnson. Thank you, Senator Murphy.
    Again, I want to thank all of our witnesses, your 
willingness to serve, your families. Being Ambassador of the 
United States to these nations is a critical job. You need to 
represent American values to those countries, but it is also 
important that you recognize you have to represent their 
viewpoint back to the United States. It is really a two-way 
street.
    So I was struck in my meetings with all of you--and I 
appreciate the time you took--that you have a great affinity 
for the countries that you have been nominated to represent. 
Many of you speak fluently the language, which is going to be 
extremely helpful. So I do commend President Trump on five, I 
think, very qualified decent human beings that are going to be 
America's representatives as Ambassadors to these nations. So 
again, thank you for your willingness to serve and sacrifice.
    With that, the hearing record will remain open for 2 days 
until September 29th at 5:00 p.m. for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
       Submitted to Peter Hoekstra by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Human rights have been an important focus throughout my 
career. On my overseas trips, I would meet frequently with and advocate 
on behalf of those individuals and groups who face discrimination in 
their countries. Some of these included the Coptic Christians in Egypt 
and Chaldeans in Iraq. I also met secretly on occasion with these 
Christian communities because of the risk to them to meet with me 
publicly.
    Since then, the conditions of Chaldeans have deteriorated 
significantly with the surge of ISIS in Iraq. I would like to believe 
that meeting with these Christians provided encouragement to them--they 
knew the U.S. Congress was interested in their situation.

    Question 2. What are the most pressing human rights concerns in the 
Netherlands today? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in the 
Netherlands and, working in partnership with the Dutch, to promote 
human rights around the globe? What do you hope to accomplish through 
these actions?

    Answer. Chapter 1 of the Constitution of the Netherlands codifies 
many human rights, and the Netherlands is signatory to all relevant 
international human rights instruments. In practice the Netherlands is 
a strong advocate of human rights globally. However, as in many 
countries, challenges remain.
    The most significant human rights issue is increasing societal 
animosity and discrimination against members of certain ethnic and 
religious minority groups, particularly Muslim immigrants from North 
Africa, Turkey, and the Middle East, and rising anti-Semitism. There 
are also concerns about discriminatory rhetoric from far-right 
political party leaders and members. If confirmed, I will seek ways to 
cooperate with the Government of the Netherlands on these issues, as 
the Netherlands is also seeking ways to address these challenges. I 
will also work with my staff in our Mission to see what creative 
programming we can bring to bear in our outreach activities to promote 
religious tolerance and equality.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Netherlands in 
advancing human rights, civil society and democracy in general?

    Answer. The Government of the Netherlands is a global leader in 
addressing human rights issues at home and around the world, and I 
commend their recent efforts such as their new national campaign 
featuring well-known personalities to ``knock down'' discrimination, 
and enhancements to their national action plan to counter 
discrimination, including stronger security for Jewish and Muslim 
communities. Countering societal discrimination in particular is a 
challenge for many countries, as it involves changing beliefs and 
attitudes toward other groups which are sometimes deep-rooted and often 
sparked by a lack of knowledge of the other. Building more 
communication channels and interfaith cooperation is a critical part of 
this, as well as economic and social integration. If confirmed, I look 
forward to supporting the Netherland's efforts in dealing with this 
challenge; one that is occurring in many countries, where there has 
been an increase in migrants fleeing the violence and conflict in their 
home countries.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs from the Netherlands?

    Answer. Yes. I recognize the value of meeting with civil society--
not only to encourage those involved in this vital part of society but 
to also gain a better understanding of the dynamics, context, and 
environment related to a particular issue. Like many of our diplomatic 
missions overseas, the staff at our Mission The Hague already knows the 
critical role that civil society as a whole, including faith community 
members and leaders, plays in promoting human rights and 
accountability. Civil society engagement is a key part of Mission 
engagement with host countries around the world, and if confirmed, I 
would facilitate and strongly support this. As a member of the 
Executive Committee of the Netherlands American Foundation, I am 
fortunate to be in a position to reach out easily to NGOs here in the 
United States that may be involved or interested in the Netherlands.

    Question 5. Will you and your embassy team actively engage with the 
Netherlands to address cases of key political prisoners or persons 
otherwise unjustly targeted?

    Answer. We are not aware of such cases in the Netherlands, but if 
confirmed I would engage, together with my embassy team, to address any 
cases of persons possibly unjustly targeted should such occasions 
arise.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. I will support my team in the Mission in the Netherlands in 
implementing the provisions outlined in the Leahy Law, which requires 
vetting of security force units including police and military who 
receive assistance from the United States. If there is credible 
information that a security force unit or individual committed gross 
violations of human rights, we will take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible units and individuals do not receive U.S. 
assistance and assisting their respective governments in bringing them 
to justice.

    Question 7. Will you engage with Dutch Government officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. I am committed to ensuring our Mission remains engaged 
on these issues. As Secretary Tillerson has said, American leadership 
requires moral clarity. We are strongest when our values and those of 
our allies are aligned. No one should have to live in fear, worship in 
secret, or face discrimination because of his or her beliefs. If 
confirmed, I will ensure that engagement on human rights and good 
governance remains an integral component of our mission.

    Question 8. What will you do to promote, mentor and support your 
staff members who come from diverse backgrounds and underrepresented 
groups in the State Department?

    Answer. Diversity is one of the things that makes America great. 
Throughout my career, both as a member of the House of Representatives 
and in the private sector, I have worked to ensure the organizations I 
led reflected the diversity of our country and upheld the principals of 
equal opportunity. If confirmed, I would uphold the same principles of 
equality and equal opportunity throughout Mission the Netherlands. As I 
stated in my testimony, I have a fundamental respect for every 
individual, and if confirmed, I will demonstrate that as Ambassador.

    Question 9. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I understand the critical importance of ensuring Mission 
the Netherlands remains a welcoming and inclusive environment. If 
confirmed, I will not only lead by example, demonstrating my own 
commitment to diversity and inclusiveness, but I will also work with my 
Deputy Chief of Mission and Country Team to ensure that all Mission the 
Netherlands supervisors uphold equal employment opportunity principles. 
I will also direct our Mission managers responsible for hiring and 
recruitment to ensure that Embassy The Hague and Consulate General 
Amsterdam remain diverse and inclusive workplaces where all team 
members have an equal opportunity to achieve success.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in the Netherlands?

    Answer. My investment portfolio includes companies that have a 
presence in the Netherlands, but I have worked closely with the State 
Department Ethics Office and the Office of Government Ethics and will 
divest my interests in those companies the State Department Ethics 
Office deems necessary to avoid a conflict of interest. I am committed 
to ensuring that my official actions will not give rise to a conflict 
of interest, and I will remain vigilant with regard to my ethics 
obligations.

    Question 13. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. I know of no significant change in my financial affairs 
since I filed my report. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest and will remain 
vigilant with regard to my ethics obligations.

    Question 14. Unity with European partners on Russia sanctions is 
critical to their success. What is your diplomatic plan to build 
support within the Netherlands for stronger sanctions on Russia?

    Answer. If confirmed, I will be committed to working closely with 
the Netherlands to maintain unity on Russia sanctions and their 
implementation. The U.S. Government has employed a collaborative and 
consultative approach with the Netherlands on sanctions, and I will 
continue to seek feedback from the Dutch, who have been reliable 
partners on Russia sanctions.
    The Dutch are steadfast on Russian sanction issues, and we will 
continue to coordinate closely on these sanctions, which support our 
important, common work in resolving the conflict in Ukraine, opposing 
the Russian occupation of Crimea, and preventing future meddling by 
Russia in foreign elections-while also remaining vigilant against 
unintended consequences for our partners. Close coordination with 
allies such as the Netherlands is crucial for the sanctions to achieve 
their ultimate goal of changing the Russian Government's behavior.

    Question 15. How will you seek to boost resilience to Russian 
meddling within Dutch institutions and civil society? What assistance 
priorities will you push with Dutch counterparts to shore up resilience 
elsewhere in Europe?

    Answer. Russia is engaged in a campaign of disinformation and 
malign influence activities to undermine core institutions of the West 
and to weaken faith in the democratic and free-market systems. Given 
the nature and breadth of Russia's campaign, it is important for the 
United States not only to pursue a whole-of-government approach but 
also work closely with Allies to expose and counter these campaigns.
    The Netherlands has first-hand experience of Russian malign 
influence. The Dutch intelligence service AIVD publically confirmed 
Russia tried to influence the March 2017 Dutch elections by spreading 
fake news, though Dutch intelligence found that Russia did not succeed 
in ``substantially influencing'' the election process. The Netherlands 
shares our concerns about ongoing Russian disinformation campaigns and 
malign influence activities across the region. If confirmed, I will 
make it a priority to work to strengthen our coordination with the 
Netherlands to detect and counter these activities that seek to 
undermine democratic institutions and principles.

    Question 16. If the United States withdraws from the Joint 
Comprehensive Plan of Action without evidence of a material breach, how 
do you anticipate that the Netherlands will respond based on statements 
from the past few weeks as well as EU statements?

   Do you believe that the best policy for the United States, if we 
        walk away from the nuclear agreement with Iran, is to impose 
        sanctions on European companies and banks that continue to do 
        business with Iran?
   What national security priorities other than Iran could be 
        negatively impacted by tensions in the transatlantic alliance 
        stemming from unilateral U.S. withdrawal from the JCPOA?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States will continue to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by Netherlands 
and all of our European partners. I cannot prejudge the outcome of the 
administration's review in terms of sanctions implications or how 
Netherlands will respond.
    Regardless of the outcome of the administration's review, close 
coordination with Europe will be crucial. If confirmed, it will be one 
of my highest priorities to ensure that we closely coordinate with the 
Netherlands to ensure the effectiveness of any measures to prevent Iran 
from obtaining a nuclear weapon, steps to combat Iran's malign 
activities more broadly, including its ballistic missile program and 
support for terrorism, and other U.S. national security priorities.

    Question 17. International cooperation to address climate change is 
a top priority for the Netherlands. The U.S. is historically, across 
multiple past administrations, a constructive partner with the 
Netherlands and other European allies on addressing climate change 
through multilateral forums including the UN.CCC and the Paris 
Agreement, the IPCC, G20, G7, the GEF and GCF. Given the President's 
antipathy towards international cooperation on climate change, how do 
you intend to approach this issue that the Netherlands' leaders care 
deeply about?
    As one of the lowest lying nations in the world, the Netherlands is 
highly vulnerable to the effects of climate change, namely sea level 
rise. In light of this risk, the Dutch lead the world in engineering 
solutions to sea level rise and have created climate change adaptation 
technologies that the Dutch can export and develop around the world. 
How will you approach discussing climate change action and investment 
in a country that is experiencing the very real and present threats 
from climate change, as a representative of an administration that very 
plainly denies the existence of this threat and is actively defunding 
federal investments in science and technology that could help the Dutch 
and others better understand the threat of climate change? What lessons 
do you think the U.S.'s most climate vulnerable communities can learn 
from the Dutch's experience and investments?

    Answer. The administration supports a balanced approach to climate 
policy that lowers emissions while promoting economic growth and 
ensuring energy security. The President determined the terms of our 
current engagement in the Paris Agreement did not balance those 
factors, and on June 1, he announced the intent to withdraw from the 
Paris Agreement. As the President has indicated, he is open to re-
engaging in the Paris Agreement if the United States can identify more 
favorable terms. The United States respects the efforts of those 
countries that continue to participate in the Paris Agreement.
    At the G20 Leaders' Summit in Hamburg, Germany, the United States 
joined the other G20 members in reiterating a collective commitment to 
mitigate greenhouse gas emissions, including through increased 
innovation in sustainable and clean energy and energy efficiency, and 
working towards low greenhouse-gas emission energy systems. The Dutch 
are proactively addressing rising sea levels through innovative 
technologies and initiatives, and they have successfully turned their 
expertise into opportunities for Dutch companies. If confirmed, I look 
forward to working with Dutch interlocutors and our European allies to 
seek common ground and develop a way forward on this important issue.
    Finding ways to bring together Dutch engineering and water 
management solutions and U.S. technology and innovation presents a 
profound opportunity to enhance both of our countries efforts in this 
arena. Many state and local governments have already sought out Dutch 
expertise on water management, and many low lying areas in the United 
States could benefit from adapting Dutch solutions to mitigate the 
effects of sea level rise. I will make it a priority to build on 
existing relationships and identify new opportunities for collaboration 
between our countries to harness innovation and technology 
breakthroughs to combat climate change and its effects.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Richard Duke Buchan III by Senator Benjamin L. Cardin

    Question 1. Have you employed or paid any workers (including but 
not limited to farmhands, housekeepers, nannies, gardeners, handymen, 
drivers, caretakers) that you have become aware may not have had legal 
documentation or for whom taxes were not properly withheld? If yes, 
please provide details and an explanation of the issue.
    Answer. No, to the best of my knowledge.

    Question 2. Have you paid all legally required employer taxes for 
any workers you have employed in the previous 10 years?
    Answer. Yes, to the best of my knowledge.

    Question 3. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Human rights and democracy are not just ideas but 
fundamental values that have shaped our society and my life. My family 
taught me to always respect the honor and dignity of everyone around 
me. Everybody must be treated equally. No one should face 
discrimination, especially not because of race, sex, religion, age, 
disability, national origin or any other status. I also believe in 
American democracy and its eight tenets: individual worth, individual 
freedom, equality, popular sovereignty, majority rule, minority rights 
and limited government. It is these democratic values that enable 
people to control their own lives, which is the most basic human right.
    While these values are natural and self-evident, they must be 
nurtured. That's why I believe in inclusion. I have always promoted 
diversity in the businesses that I have worked for and owned. That's 
also why my family has long provided meaningful support to educational 
institutions such as Harvard University that fervently promote human 
rights and democracy, to organizations whose good works include 
educating young girls in impoverished countries, and to church 
missions. I have also volunteered in electoral politics in an effort to 
get more people involved in our democratic elections.
    Although it is difficult to measure the impact of my actions, I 
believe they have been positive. If confirmed, I will continue to 
advance human rights and democracy as Ambassador to Spain.

    Question 4. What are the most pressing human rights concerns in 
Spain today?

   What are the most important steps you expect to take--if 
        confirmed--to advance human rights and democracy in Spain and 
        Andorra?
   What do you hope to accomplish through these actions?
   If confirmed, what are the potential obstacles to addressing the 
        specific human rights issues you have identified in your 
        previous response?
   What challenges will you face in Spain and Andorra in advancing 
        human rights, civil society and democracy in general?

    Answer. Spain and Andorra are strong partners in advancing human 
rights around the world. Nevertheless, some important challenges 
remain. In Andorra, issues persist regarding the rights of workers to 
bargain collectively. Andorran law does not provide sufficient 
protection from anti-union discrimination. Access for persons with 
disabilities is another area where improvements can be made.
    In Spain, the recent European refugee and migration challenge has 
brought to light reports concerning the denial of access to asylum and 
forced returns of asylum seekers by police. Human trafficking, 
including labor and sex trafficking, remains a prominent concern, as 
well as gender-based violence and continued societal discrimination 
against members of racial, religious, and ethnic minorities, persons 
with disabilities, and members of the LGBTI community. However, Spain's 
strong actions in the area of human rights have been essential in 
addressing these concerns. For example, the Barcelona administration 
launched a 28-point action plan in January 2017 to address rising anti-
Muslim sentiment. Spain also earned a Tier 1 ranking in the State 
Department's annual Trafficking in Persons Report, a mark of the 
Government's full commitment to combat human trafficking, as outlined 
in the report.
    If confirmed, I am committed to continuing Mission Spain/Andorra's 
engagement with Spanish and Andorran officials to combat all forms of 
intolerance and to strengthen respect for human rights. I would also 
look forward to strengthening Mission Spain/Andorra's programs in 
combating human trafficking and corruption, addressing human rights 
abuses against refugees and migrants, and promoting good governance. If 
confirmed, I will strongly support the Department of State's ongoing 
work with these European partners.

    Question 5. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Spain and Andorra?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of society among European publics, including human 
rights activists, civil society, religious groups, and the 
organizations that represent them.

    Question 6. Will you and your embassy team actively engage with 
Spain to address cases of key political prisoners or persons otherwise 
unjustly targeted?

    Answer. I am not aware of such cases in Spain or Andorra, but if 
confirmed, I would certainly engage with Spanish and Andorran 
authorities to address cases of persons unjustly targeted when such 
occasions arise.

    Question 7. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure the Mission continues to vet 
thoroughly all individuals and units nominated to participate in U.S.-
funded security assistance activities, in accordance with the Leahy 
law. If there are findings of credible information regarding gross 
violations of human rights, we will take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible parties do not participate in U.S.-funded 
training and will assist their respective governments to bring them to 
justice.

    Question 8. Will you engage with Spanish and Andorran officials on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. I am committed to ensuring our Mission remains engaged on 
these issues. As Secretary Tillerson has said, American leadership 
requires moral clarity. We are strongest when our values and those of 
our allies are aligned, and when we hold our rivals accountable for 
human rights abuses at home. If confirmed, I will ensure that 
engagement on human rights, civil rights, and governance remains an 
integral component of our Mission.

    Question 9. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that's diverse and 
        inclusive?

    Answer. I am committed to equal employment opportunity principles. 
If confirmed, I will foster a diverse and inclusive team across Mission 
Spain, and will communicate that this is a priority for me as the 
Ambassador. If confirmed, I will urge the Mission to reflect our whole-
of-mission commitment to promoting diversity and inclusion. In keeping 
with Secretary Tillerson's strong emphasis on diversity, I will ensure 
all supervisors have access to and avail themselves of opportunities to 
receive regular formal training and regular guidance on EEO principles, 
diversity, and inclusion to sensitize them to these important issues 
and maximize diverse talents in our workforce.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in Spain or Andorra?

    Answer. My investment portfolio includes companies that have a 
presence in Spain/Andorra, but I have worked closely with the State 
Department Ethics Office and the Office of Government Ethics and will 
divest my interests in those companies the State Department Ethics 
Office deems necessary to avoid a conflict of interest. I am committed 
to ensuring that my official actions will not give rise to a conflict 
of interest, and I will remain vigilant with regard to my ethics 
obligations.

    Question 13. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. Since my OGE financial disclosure statement dated April 
2017, there have not been material changes in my overall financial 
assets and income. In June 2017, I invested in an assisted living and 
memory care facility located in the Southeastern United States for the 
amount of $3.9 million that will have an asset value of approximately 
$20 million. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest and will remain vigilant with 
regard to my ethics obligations.

    Question 14. Russia Sanctions: Unity with European partners on 
Russia sanctions is critical to their success. What is your diplomatic 
plan to build support within Spain for stronger sanctions on Russia?

    Answer. If confirmed, I will be committed to working closely with 
Spain to maintain unity on Russia sanctions and their implementation. 
The U.S. Government has employed a collaborative and consultative 
approach on sanctions, and I will continue to seek feedback from Spain, 
which has been a steadfast partner on Russia sanctions.
    My goal is to ensure these sanctions support our important, common 
work in resolving the conflict in Ukraine, restoring control of Crimea 
to Ukraine, and preventing future meddling by Russia in foreign 
elections-while also remaining vigilant against unintended consequences 
for our partners. I will likewise remain mindful of our many foreign 
policy priorities related to Europe as the U.S. Government and the EU 
implement these sanctions, including our commitment to promoting 
European energy security. Close coordination with our allies is crucial 
to enabling the sanctions to achieve their ultimate goal: imposing 
costs on Russia sufficient to change the Russian Government's behavior.

    Question 15. Russian Malign Influence: How will you seek to boost 
resilience to Russian meddling within Spanish institutions and civil 
society? What assistance priorities will you push with Spanish 
counterparts to shore up resilience elsewhere in Europe?

    Answer. Russia is engaged in a campaign of disinformation and 
malign influence activities to undermine core institutions of the West 
and to weaken faith in the democratic and free-market systems. This 
campaign is aggressive, coordinated, and involves the entire Russian 
Government. The United States should continue to work closely with its 
Allies and partners, such as Spain, to enhance collective resilience 
against these threats. Given the nature and breadth of Russia's 
campaign, it is important for the United States not only to pursue a 
whole-of-government approach but also work closely with Allies such as 
Spain to expose and counter these campaigns. If confirmed, I will work 
closely with the Spanish Government to support this effort.

    Question 16. If the United States withdraws from the Joint 
Comprehensive Plan of Action without evidence of a material breach, how 
do you anticipate that Spain will respond based on statements from the 
past few weeks as well as EU statements?

   Do you believe that the best policy for the United States, if we 
        walk away from the nuclear agreement with Iran, is to impose 
        sanctions on European companies and banks that continue to do 
        business with Iran?
   What national security priorities other than Iran could be 
        negatively impacted by tensions in the transatlantic alliance 
        stemming from unilateral U.S. withdrawal from the JCPOA?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by Spain and 
all of our European partners. I cannot prejudge the outcome of the 
administration's review in terms of sanctions implications or how Spain 
will respond.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial. If confirmed, it will be one of my highest 
priorities to ensure that we closely coordinate with Spain to ensure 
the effectiveness of any measures to prevent Iran from obtaining a 
nuclear weapon, steps to combat Iran's malign activities more broadly, 
including its ballistic missile program and support for terrorism, and 
other U.S. national security priorities.

    Question 17. International cooperation to address climate change is 
a top priority for Spain. The U.S. is historically, across multiple 
past administrations, a constructive partner with Spain and other 
European allies on addressing climate change through multilateral 
forums including the UN.CCC and the Paris Agreement, the IPCC, G20, G7, 
the GEF and GCF. Given the President's antipathy towards international 
cooperation on climate change, how do you intend to approach this issue 
that Spain's leaders care deeply about?

    Answer. The administration supports a balanced approach to climate 
policy that lowers emissions while promoting economic growth and 
ensuring energy security. The President determined the terms of our 
current engagement in the Paris Agreement did not balance those 
factors, and on June 1, he announced the intent to withdraw from the 
Paris Agreement. As the President has indicated, he is open to re-
engaging in the Paris Agreement if the United States can identify more 
favorable terms. The United States respects the efforts of those 
countries that continue to participate in the Paris Agreement.
    At the G20 Leaders' Summit in Hamburg, Germany, the United States 
joined the other G20 members in reiterating a collective commitment to 
mitigate greenhouse gas emissions, including through increased 
innovation in sustainable and clean energy and energy efficiency, and 
working towards low greenhouse-gas emission energy systems. If 
confirmed, I look forward to working with Spanish interlocutors and our 
European allies to seek common ground and develop a way forward on this 
important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Richard Duke Buchan III by Senator Marco Rubio

    Question 1. If confirmed, do you commit to discuss consistently 
with the Spanish Government the U.S. position on the Castro regime?

   If confirmed, would you encourage the Spanish Government to 
        consider similar measures to isolate the Castro regime?

    Answer. Human rights in Cuba remain a significant concern. 
President Trump's new Cuba policy is an important step in the right 
direction to put pressure on the Government to address these troubling 
issues.
    If confirmed, I will advocate for the official U.S. position on 
Cuba consistently with the Spanish Government and will encourage it to 
make human rights a priority issue in its dealings with the Cuban 
Government.

    Question 2. If confirmed, do you commit to create and maintain a 
dialogue with the Spanish Government on the need to oppose the anti-
democratic Maduro regime?

   If confirmed, would you encourage the Spanish Government to 
        consider similar measures to isolate the Maduro regime?

    Answer. Venezuela's further slide away from democracy is deeply 
troubling, and the July 30 Constituent Assembly elections imposed on 
the Venezuelan people undermine their right to self-determination. 
Spain is an important partner in pushing back against the Maduro 
regime's abuses of power. Spain has been a strong voice in Latin 
America and within the EU for sanctions and other measures.
    If confirmed, I look forward to coordinating closely with Spain on 
additional steps to address the crisis in Venezuela. Already, Spain has 
actively worked with us and with EU partners on additional measures 
similar to those already implemented by the United States. If 
confirmed, I will encourage Spain to continue leading within the EU on 
this issue.

    Question 3. If confirmed, do you commit to discuss consistently 
with the Spanish Government the U.S. position on the Castro regime?

   If confirmed, would you encourage the Spanish Government to 
        consider similar measures to isolate the Castro regime?

    Answer. Human rights in Cuba remain a significant concern. 
President Trump's new Cuba policy is an important step in the right 
direction to put pressure on the Government to address these troubling 
issues.
    If confirmed, I will advocate for the official U.S. position on 
Cuba consistently with the Spanish Government and will encourage it to 
make human rights a priority issue in its dealings with the Cuban 
Government.

    Question 4. If confirmed, do you commit to create and maintain a 
dialogue with the Spanish Government on the need to oppose the anti-
democratic Maduro regime?

   If confirmed, would you encourage the Spanish Government to 
        consider similar measures to isolate the Maduro regime?

    Answer. Venezuela's further slide away from democracy is deeply 
troubling, and the July 30 Constituent Assembly elections imposed on 
the Venezuelan people undermine their right to self-determination. 
Spain is an important partner in pushing back against the Maduro 
regime's abuses of power. Spain has been a strong voice in Latin 
America and within the EU for sanctions and other measures.
    If confirmed, I look forward to coordinating closely with Spain on 
additional steps to address the crisis in Venezuela. Already, Spain has 
actively worked with us and with EU partners on additional measures 
similar to those already implemented by the United States. If 
confirmed, I will encourage Spain to continue leading within the EU on 
this issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Richard Grenell by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. In the roughly eight years I spent as the Head of Press and 
Public Diplomacy at the United States Mission to the U.N. I 
consistently raised the issue of human rights, highlighted the abuses 
of authoritarian regimes, and advocated for the rights of gays and 
lesbians around the world. In particular, I sought out ways to support 
international organizations concerned about gay and lesbian equality in 
countries throughout Africa and the Middle East who were petitioning 
the U.N. for greater action. I regularly met with foreign diplomats 
based at the U.N. or visiting the U.N. who were gay, to understand 
their issues and concerns and to learn from them as to what the U.N. 
and specifically the U.S. could do to help them. I regularly 
highlighted to senior State Department officials in Washington, DC the 
stories of violence endured by gays and lesbians in other countries and 
regularly requested that State Department spokespeople publicly condemn 
the violence. The impact of my regular and continued advocacy is still 
unknown. While I have seen some actions taken to condemn egregious 
violence, I still believe more can be done to promote equality for gays 
and lesbians in foreign countries. As a foreign policy commentator, I 
have also spoken about and written numerous articles condemning 
autocracies, such as Venezuela and Russia, and advocating for America 
to prioritize democracy promotion.

    Question 2. What are the most pressing human rights concerns in 
Germany today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Germany and, 
working in partnership with Germany, to promote human rights around the 
globe? What do you hope to accomplish through these actions?

   If confirmed, what are the potential obstacles to addressing the 
        specific human rights issues you have identified in your 
        previous response? What challenges will you face in Germany in 
        advancing human rights, civil society and democracy in general?

    Answer. Germany has a strong overall record of protecting human 
rights at home and is a valuable partner in defending human rights 
around the globe. One of the most pressing human rights concerns in 
Germany is the integration of asylum seekers, refugees, and migrants 
who have arrived in Germany over the past several years. The influx of 
such a large number of asylum seekers and refugees has exacerbated 
tensions within society; consequently, extremism and xenophobia have 
been an increasingly significant problem, including attacks on ethnic 
non-Germans. The German Government has taken steps to counter such 
extremism and xenophobia, and the authorities continue to implement 
measures to facilitate the integration of the recently-arrived refugees 
and migrants. There have also been reports of anti-Semitic and 
homophobic attacks, discrimination of persons with disabilities, and 
unfair treatment of Muslim women wearing headscarves in the workplace. 
We saw progress on this front when the Bundestag voted on June 30 to 
amend Germany's civil code to legalize same-sex marriage. Also positive 
is the fact that legal recourse is available to women who feel they 
have been treated unfairly or denied employment for their religious 
dress.
    If confirmed, I will use every opportunity to promote the message 
of the importance of diversity and human rights, including the rights 
of LGBT individuals, migrants, minorities, women, and persons with 
disabilities. Germany is already a global leader in advancing human 
rights and democracy around the world and it regularly raises concerns 
both publicly and in its bilateral and multilateral engagements with 
foreign governments, including with Iran, Russia, China, and Venezuela. 
Berlin also frequently coordinates with Washington in supporting United 
Nations resolutions and U.N. Human Rights Council (HRC) statements that 
highlight human rights. If confirmed, I intend to continue this close 
partnership with Germany in advocating for human rights throughout 
Europe and the world.

    Question 3. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Germany?

    Answer. If confirmed, I am committed to working with human rights, 
civil society groups and NGOs to advance U.S. priorities, including 
human rights. If confirmed, I would welcome the opportunity to meet 
with experts in these areas in both the United States and Germany.

    Question 4. Will you and your embassy team actively engage with 
Germany to address cases of key political prisoners or persons 
otherwise unjustly targeted?

    Answer. If confirmed, I will work with German authorities to press 
countries around the world to address cases of key political prisoners 
and persons otherwise unjustly targeted.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure the Embassy continues to vet 
thoroughly all individuals and units nominated to participate in U.S.-
funded security assistance activities, in accordance with the Leahy 
law. If there are findings of credible information regarding gross 
violations of human rights, we will take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible parties do not participate in U.S.-funded 
training and will assist their respective governments to bring them to 
justice.

    Question 6. Will you engage with Germans on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. If confirmed, I will continue the U.S. Mission's 
strong partnership with the German Government and German civil society 
to engage on matters of human rights, civil rights and governance.

    Question 7. What will you do to promote, mentor and support your 
staff members who come from diverse backgrounds and underrepresented 
groups in the State Department?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that is diverse and 
        inclusive?

    Answer. If confirmed, I will commit to promoting, mentoring, and 
supporting staff members from diverse backgrounds and underrepresented 
groups. I will make it a priority to foster a diverse and inclusive 
team at our Mission and encourage all supervisors to take available 
courses on EEO principles, diversity, and related issues. I will lead 
by example and articulate my desire to hear diverse opinions and 
diverse backgrounds. I will also visibly lead public diplomacy events 
with outreach to gays and lesbians in Germany, including in immigrant 
communities.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in the Germany?

    Answer. Neither I, nor any member of my immediate family, has any 
financial interests in Germany.

    Question 11. I understand that you have written many articles and 
op-eds over the past eight years on foreign policy issues, including 
with respect to Moldova. Did you receive any payment or any other form 
of compensation for your writings on Moldova? If so, who provided those 
payments? Was any compensation you received on behalf of, or provided 
indirectly, by a foreign government, foreign political party, foreign 
organization, or foreign national?

    Answer. I have written numerous personal opinion pieces on foreign 
policy and national security issues over the years. I have also 
expressed my views and opinions through television interviews. A small 
number of these opinion pieces and interviews have related to Moldova, 
primarily to highlight Russia`s campaigns of misinformation, propaganda 
and meddling around the world. Russian interference in other countries' 
domestic affairs has been a consistent theme in my work, including my 
work to highlight examples in Turkey, Ukraine, Montenegro, Poland, 
Georgia, Estonia, and with Radio Free Europe and Voice of America. I 
did not receive any compensation for that work. I believe strongly in 
confronting threats to democracy, and all of those views were my own 
opinion.

    Question 12. Did anyone request or direct you to write op-eds on 
Moldova? If so, who? Was any request made on behalf of a foreign 
government, foreign political party, foreign organization, or foreign 
national? If not, what motivated you to write the op-eds?

    Answer. No, the op-eds that you are referring to--like all of the 
op-eds I have written or the personal opinions I have expressed 
publicly--reflect my informed views and ideas and not anyone else's. 
Russian meddling in Central and Eastern Europe has been a constant 
theme in my work; and current events have borne out my long-held views. 
My motivation in writing or speaking on any particular subject is 
because I think it is important. Additionally, I am heartened to see 
how important the subject of Russian meddling has become with the U.S. 
media and with Americans.

    Question 13. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. No. There have been no material changes to my financial 
assets, income, or any other information since the date I signed the 
OGE financial disclosure form.

    Question 14. Russia Sanctions: Unity with European partners on 
Russia sanctions is critical to their success. What is your diplomatic 
plan to build support within Germany for stronger sanctions on Russia?

    Answer. If confirmed, I will be committed to working closely with 
Germany to maintain unity on Russia sanctions and their implementation. 
The U.S. Government has employed a collaborative and consultative 
approach on sanctions, and I will continue to seek feedback from our 
allies, who have been steadfast partners on Russia sanctions.
    My goal is to ensure these sanctions support our important, common 
work in resolving the conflict in Ukraine, restoring control of Crimea 
to Ukraine, and preventing future meddling by Russia in foreign 
elections-while also remaining vigilant against unintended consequences 
for our partners. I will likewise remain mindful of our many foreign 
policy priorities related to Germany as I contribute to the U.S. 
Government's implementation of these sanctions, including our 
commitment to promoting European energy security and encouraging 
interoperability in NATO weapons systems. Close coordination with our 
German allies is crucial to enabling the sanctions to achieve their 
ultimate goal: imposing costs on Russia sufficient to change the 
Russian Government's behavior.

    Question 15. How will you seek to boost resilience to Russian 
meddling within German institutions and civil society? What assistance 
priorities will you push with German counterparts to shore up 
resilience elsewhere in Europe?

    Answer. Russia uses a constellation of approaches, overt and 
covert, to influence the policies of other governments and undermine 
domestic stability in Europe. Russia seeks to weaken European unity and 
erode faith in democratic institutions. A Europe whole, free, and at 
peace is in the interests of the United States. Efforts to disrupt 
democratic processes and weaken unity directly and negatively affect 
U.S. interests and security, while institutionalized respect for human 
rights, good governance, and rule of law contributes to long-term 
stability. By promoting our shared democratic values, and by holding 
our European partners accountable to their commitments and the rule of 
law, the United States strengthens our partners' capabilities to 
mitigate vulnerabilities to malign influences and counter threats to 
their security and sovereignty. The approach to this must be 
comprehensive and whole-of-government, and the Department of State has 
a critical role to play in addressing this threat.
    The German Government has become increasingly concerned about 
Russian interference in its politics. If confirmed, I will prioritize 
efforts to build and strengthen Germany's resilience against Russia's 
efforts to undermine these democratic processes, including through 
exchanges of information and best practices, as well as programming for 
the German public. Secretary Tillerson has been clear that he views as 
the highest priorities for U.S. assistance those areas of Central and 
Eastern Europe affected by pressure from the Russian Federation. We 
will work with our German partners to continue ongoing assistance 
efforts and engagements that seek to build and reinforce the rule of 
law, support democratic institutions, promote human rights, and drive 
economic development in vulnerable countries in Europe.

    Question 16. If the United States withdraws from the Joint 
Comprehensive Plan of Action without evidence of a material breach, how 
do you anticipate that Germany will respond based on statements from 
the past few weeks as well as EU statements?

    Answer. German authorities at various levels have underscored 
publicly the importance Germany places on the JCPOA. The administration 
is currently conducting a review of the JCPOA and our broader approach 
to Iran. While that review is ongoing, the United States will continue 
to implement its JCPOA commitments, and expects Iran to do the same. In 
addition, the United States seeks to ensure strict implementation of 
the JCPOA, a goal shared by Germany and all of our European partners. I 
cannot prejudge the outcome of the administration's review in terms of 
sanctions implications or how Germany will respond.
    Regardless of the outcome of the administration's review, close 
coordination with Germany will be crucial. If confirmed, it will be one 
of my highest priorities to ensure that we closely coordinate with 
Germany to ensure the effectiveness of any measures to prevent Iran 
from obtaining a nuclear weapon, steps to combat Iran's malign 
activities more broadly, including its ballistic missile program and 
support for terrorism, and other U.S. national security priorities.

    Question 17. Do you believe that the best policy for the United 
States, if we walk away from the nuclear agreement with Iran, is to 
impose sanctions on European companies and banks that continue to do 
business with Iran?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States will continue to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our German 
partners. I cannot prejudge the outcome of the administration's review 
in terms of sanctions implications.
    Regardless of the outcome of the administration's review, close 
coordination with Germany will be crucial. If confirmed, it will be one 
of my highest priorities to ensure that we closely coordinate with our 
German partners and the European Union to ensure the effectiveness of 
any measures to prevent Iran from obtaining a nuclear weapon and to 
combat Iran's malign activities more broadly, including its ballistic 
missile program and support for terrorism.

    Question 18. What national security priorities other than Iran 
could be negatively impacted by tensions in the transatlantic alliance 
stemming from unilateral U.S. withdrawal from the JCPOA?

    Answer. The administration is currently conducting a review of the 
JCPOA and its broader approach to Iran. While that review is ongoing, 
the United States will continue to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by our German 
partners.
    Regardless of the outcome of the administration's review, close 
coordination with Germany will be crucial. Germany remains key to 
addressing any number of other pressing international issues, including 
combatting terrorism and addressing the threat from North Korea. Our 
German partners want to work with us to address these challenges, and 
if confirmed, I will focus on ensuring the United States and Germany 
remain in lockstep on these issues.

    Question 19. International cooperation to address climate change is 
a top priority for Germany. The U.S. is historically, across multiple 
past administrations, a constructive partner with Germany and other 
European allies on addressing climate change through multilateral 
forums including the UNCCC and the Paris Agreement, the IPCC, G20, G7, 
the GEF and GCF. Given the President's antipathy towards international 
cooperation on climate change, how do you intend to approach this issue 
that Germany's leaders care deeply about?

    Answer. The administration supports a balanced approach to climate 
policy that lowers emissions while promoting economic growth and 
ensuring energy security. The President determined the terms of our 
current engagement in the Paris Agreement did not balance those 
factors, and on June 1, he announced the intent to withdraw from the 
Paris Agreement. As the President has indicated, he is open to re-
engaging in the Paris Agreement if the United States can identify more 
favorable terms. The United States respects the efforts of those 
countries that continue to participate in the Paris Agreement.
    At the G20 Leaders' Summit in Hamburg, Germany, the United States 
joined the other G20 members in reiterating our collective commitment 
to mitigate greenhouse gas emissions, including through increased 
innovation in sustainable and clean energy and energy efficiency, and 
working towards low greenhouse-gas emission energy systems. The United 
States has a strong record of reducing greenhouse-gas emissions through 
technology, innovation, and entrepreneurship. We will continue to be a 
world leader in innovation, particularly the development of next-
generation energy technology.
    The United States will send a delegation to the United Nations 
Framework Convention on Climate Change (UNFCCC) 23rd annual Conference 
of the Parties (COP23) in November in Bonn and plans to continue to 
participate in negotiations related to the Paris Agreement--including 
those to develop guidance for the Paris Agreement--in order to protect 
U.S. interests. If confirmed, I look forward to working with Germany 
and our European allies to seek common ground and develop a way forward 
on this important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Jamie McCourt by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a Board member of Business Executives for National 
Security (BENS) since 2011, I have taken several field visits to 
countries affected by human rights issues. In 2012, we visited Myanmar. 
The goal of this trip was to learn firsthand about the challenges 
facing the country by focusing on political reforms, Myanmar's 
relationship to China, and the effectiveness of U.S. sanctions on 
Myanmar.
    Also in 2015, I joined BENS on a trip to the Republic of Korea. 
This trip focused on the ROK-US alliance, the security situation on the 
Korean Peninsula, human rights issues past and present, the Japan-Korea 
relationship and the ROK economy.
    I have also served on UNCEF's Southern California Regional Board 
since 2013 and support UNCEF's National Board. I traveled with the U.S. 
Fund for UNCEF to the Middle East where I visited the Za'atari refugee 
camp in Amman, Jordan. During this visit I was able to observe UNCEF 
programs in action and speak directly to the refugees to see what their 
most pressing needs were for additional help. After Jordan, we traveled 
to Israel to review the status and future of UNCEF's role there as 
well.
    I am also a supporter of AIPAC, whose mission is to strengthen, 
protect and promote the U.S.-Israel relationship in ways that enhance 
the security and protect the democracies of the United States and 
Israel. In 2014, I attended the AIPAC Policy Conference in Washington, 
D.C. One of the main seminar topics was the status of the Middle East's 
Jewish refugees. Following the conference, I had the opportunity to 
travel back to D.C. for a private meeting at the AIPAC offices to 
further the conversation and to learn more about AIPAC's programs.
    In addition, as a proud supporter of Israel and the Jewish 
community, I was extremely honored to receive the Scopus award in 
December of 2006. It is the highest humanitarian honor given by the 
American Friends of the Hebrew University.
    In January of 2011, I traveled to Ethiopia to visit the Ethiopian 
Children's Fund (ECF) School in the Village of Aleltu for the 
groundbreaking of the Gelila Assefa Puck Vocational Training Center. 
Gelila and Wolfgang Puck are close friends and I was pleased to support 
this very worthwhile project. The vocational training center, which 
opened in 2013, provides those who have graduated from the ECF School 
with additional training toward a career.
    I have supported Human Rights Watch (HRW) since being introduced to 
the organization by a very close friend who is the Co-Chair of the LA 
Committee and a member of the International Board of Directors, as well 
as by other friends who are officers of the organization. I have also 
had private conversations with Ken Roth, the Executive Director of HRW.
    During the past several years, I have given a keynote address on 
financial self-sufficiency at many of the top graduate business schools 
including Harvard, Columbia and MIT. I am a strong advocate for 
education and a passionate supporter of financial self-sufficiency for 
women.

    Question 2. What are the most pressing human rights concerns in 
France and Monaco today? What are the most important steps you expect 
to take--if confirmed--to advance human rights and democracy in France 
and Monaco, and, working in partnership with your host government, to 
promote human rights around the globe? What do you hope to accomplish 
through these actions?

   If confirmed, what are the potential obstacles to addressing the 
        specific human rights issues you have identified in your 
        previous response? What challenges will you face in France and 
        Monaco in advancing human rights, civil society and democracy 
        in general?

    Answer. Respect for human rights is a core American value. There 
should be no room for hate crimes against members of vulnerable 
communities such as religious minorities, LGBTI individuals, migrants, 
or persons with disabilities. Although both France and Monaco have 
strong records on human rights, generally speaking, if confirmed, I 
will strongly support the Department of State's ongoing work with our 
French and Monegasque partners to combat all forms of intolerance and 
to strengthen respect for human rights.
    America's alliances are strongest when our values and those of our 
allies are aligned. The United States has been diligent in encouraging 
its allies, including the French, to remain firmly committed to our 
shared democratic principles and rule of law. If confirmed, I will work 
in partnership with France to speak up against restrictions on civil 
society and free expression, discrimination against members of minority 
groups, and steps that undermine the independence of the judiciary or 
otherwise may threaten the foundations of constitutional order.

    Question 3. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in France and Monaco?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of society in the United States, France, and Monaco, 
including human rights NGOs, civil society, religious groups, and the 
organizations that represent them.

    Question 4. Will you and your Embassy actively engage with relevant 
governments in France and Monaco to address cases of key political 
prisoners or persons otherwise unjustly detained in their states?

    Answer. I am not aware of such cases in France and Monaco, but if 
confirmed, I would certainly engage with French and Monegasque 
authorities to address cases of persons unjustly targeted when such 
occasions arise.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure the Embassy continues to 
implement the provisions of the Leahy law. If there are findings of 
credible information regarding gross violations of human rights, we 
will take the necessary steps in accordance with the law and Department 
policy.

    Question 6. Will you engage with the people of France and Monaco on 
matters of human rights, civil rights and accountable governance as 
part of your bilateral mission?

    Answer. I am committed to ensuring our Embassy and Consulates in 
France remain engaged on these issues. As Secretary Tillerson has said, 
American leadership requires moral clarity. If confirmed, I will ensure 
that engagement on human rights, including civil rights, and governance 
remain integral components of our mission.

    Question 7. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that's diverse and 
        inclusive?

    Answer. I am committed to equal employment opportunity principles. 
If confirmed, I will foster a diverse and inclusive team within Mission 
France and communicate this as a priority for me as the Ambassador. If 
confirmed, I will urge the Mission to reflect our commitment to 
promoting diversity and inclusion.
    Further, in keeping with Secretary Tillerson's strong emphasis on 
diversity, if confirmed, I will ensure all supervisors at all of our 
posts in France have access to and avail themselves of opportunities to 
receive regular formal training and regular guidance on EEO principles, 
diversity, and inclusion to sensitize them to these important issues 
and maximize diverse talents in our workforce.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in France and Monaco?

    Answer. Potential conflicts involving any financial interests of 
mine have been addressed by the ethics officials of the Department of 
State and by the Office of Government Ethics and have been resolved in 
my ethics agreement. As for members of my immediate family, my adult 
sons have an interest in a professional football (soccer) team in 
Marseilles. I have no financial interest of any kind in the team. I 
will remain vigilant with regard to my ethics obligations and am 
committed to ensuring that my actions will not give rise to a conflict 
of interest.

    Question 11. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. I know of no significant change in my financial affairs 
since I filed my report. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest and will remain 
vigilant with regard to my ethics obligations.

Russia Sanctions
    Question 12. Unity with European partners on Russia sanctions is 
critical to their success. What is your diplomatic plan to build 
support within France for stronger sanctions on Russia?

    Answer. Maintaining transatlantic unity on sanctions has been a key 
component of U.S. policy towards Russia. If confirmed, I commit to 
working closely with France to maintain unity on Russia sanctions and 
their implementation. The U.S. Government has employed a collaborative 
and consultative approach on sanctions, and I will continue to seek 
feedback from France, which has been a steadfast partner on Russia 
sanctions.
    My goal will be to ensure these sanctions support our important, 
common work in resolving the conflict in eastern Ukraine, restoring 
control of Crimea to Ukraine, and preventing future meddling by Russia 
in foreign elections-while also remaining vigilant against unintended 
consequences for our partners. I will likewise remain mindful of our 
many foreign policy priorities related to France as I contribute to the 
U.S. Government's implementation of these sanctions, including our 
commitment to promoting European energy security and encouraging 
interoperability in NATO weapons systems. Close coordination with our 
French allies is crucial to enabling the sanctions to achieve their 
ultimate goal: imposing costs on Russia sufficient to change the 
Russian Government's behavior.

Russian Malign Influence
    Question 13. How will you seek to boost resilience to Russian 
meddling within French institutions and civil society? What assistance 
priorities will you push with French counterparts to shore up 
resilience elsewhere in Europe?

    Answer. Russia is engaged in a campaign of disinformation and 
malign influence activities to undermine core institutions of the West 
and to weaken faith in the democratic and free-market systems. This 
campaign is aggressive, coordinated, and involves the entire Russian 
Government. The United States should continue to work closely with its 
Allies and partners to enhance collective resilience against these 
threats. Given the nature and breadth of Russia's campaign, it is 
important for the United States not only to pursue a whole-of-
government approach but also work closely with Allies to expose and 
counter these campaigns.
    If confirmed, I will promote cooperation with our Allies to build 
resilience in France and all NATO countries, as well as address 
vulnerabilities in Ukraine, Georgia, and the Western Balkans. I will 
push for the continuation of programs that promote the protection of 
human rights, build and reinforce the rule of law, support democratic 
institutions, and promote economic development in France and elsewhere 
in Europe. Furthermore, I will work closely with France on 
implementation of the Countering America's Adversaries Through 
Sanctions Act to maintain unity on implementation of sanctions in order 
to further exert economic pressure on Russia to modify their aggressive 
behavior.

    Question 14. If the United States withdraws from the Joint 
Comprehensive Plan of Action without evidence of a material breach, how 
do you anticipate that France will respond based on statements from the 
past few weeks as well as EU statements?

   Do you believe that the best policy for the United States, if we 
        walk away from the nuclear agreement with Iran, is to impose 
        sanctions on European companies and banks that continue to do 
        business with Iran?
   What national security priorities other than Iran could be 
        negatively impacted by tensions in the transatlantic alliance 
        stemming from unilateral U.S. withdrawal from the JCPOA?

    Answer. French authorities at various levels have underscored 
publicly the importance France places on the JCPOA. The administration 
is currently conducting a review of the JCPOA and our broader approach 
to Iran. While that review is ongoing, the United States continues to 
implement its JCPOA commitments, and expects Iran to do the same. In 
addition, the United States seeks to ensure strict implementation of 
the JCPOA, a goal shared by France and all of our European partners. I 
cannot prejudge the outcome of the administration's review in terms of 
sanctions implications or how France will respond.
    Regardless of the outcome of the administration's review, unity 
with France will be crucial. If confirmed, it will be one of my highest 
priorities to ensure that we closely coordinate with France to ensure 
the effectiveness of any measures to prevent Iran from obtaining a 
nuclear weapon, steps to combat Iran's malign activities more broadly, 
including its ballistic missile program and support for terrorism, and 
other U.S. national security priorities.

    Question 15. We've seen France make leadership on climate action a 
central tenet of their foreign policy. This has been exemplified 
through the leadership they've shown on the issue through the Paris 
Agreement/G20/G7. Leaders from France have not been shy about raising 
climate change with President Trump and have publicly expressed 
frustration over the U.S. retreat from leading on this issue. What will 
you do to reassure France that the U.S. can be counted on as a strong 
leader and partner on climate action?

    Answer. The administration supports a balanced approach to climate 
policy that lowers emissions while promoting economic growth and 
ensuring energy security. The President determined the terms of our 
current engagement in the Paris Agreement did not balance those 
factors, and on June 1, he announced the intent to withdraw from the 
Paris Agreement. As the President indicated in his June 1 announcement 
and subsequently, he is open to re-engaging in the Paris Agreement if 
the United States can identify terms that are more favorable.
    The United States respects the efforts of those countries that 
continue to participate in the Paris Agreement. If confirmed, I look 
forward to working with French interlocutors and our European allies to 
seek common ground and develop a way forward on this important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
         Edward T. McMullen, Jr. by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. While my career has been in business, I have dedicated much 
of my personal time to charitable efforts ensuring opportunities for 
those less fortunate. One example, relevant to human rights concerns we 
have around the world, is the treatment of prisoners.
    I have worked for 20 years as a mentor and donor to empower young 
low income adolescents in need. I began teaching an entrepreneurship 
class to students in the South Carolina Juvenile Justice prison. Most 
were low income minority offenders whose families offered no direction. 
These students, some of our state's most serious youth offenders, were 
acting with rage and living a life surrounded by drugs and weapons.
    I developed a curriculum specific to helping these students have a 
mentor and skills that would build their self-respect. I taught them 
basic math and investment skills and then progressed to helping them 
start a business, all while they were incarcerated. I spent many 
hours--as long as they needed--to teach them and provide a true 
opportunity for rehabilitation. I personally funded some of their 
concepts and helped them see how hard work and ideas can change their 
lives. The resulting benefit of this work was watching these young and 
angry lost children become, over time, motivated, informed and eager 
entrepreneurs who could leave the prison with hope and opportunity.

    Question 3. What are the most pressing human rights concerns in 
Switzerland and Liechtenstein today? What are the most important steps 
you expect to take--if confirmed--to advance human rights and democracy 
in Switzerland and Liechtenstein, and, working in partnership with your 
host government, to promote human rights around the globe? What do you 
hope to accomplish through these actions?

   If confirmed, what are the potential obstacles to addressing the 
        specific human rights issues you have identified in your 
        previous response? What challenges will you face in Switzerland 
        and Liechtenstein in advancing human rights, civil society and 
        democracy in general?

    Answer. Switzerland and Liechtenstein each have a strong record on 
human rights and we are important partners in addressing human rights 
challenges around the world based on the common values we share. The 
State Department's annual Human Rights Report lists challenges these 
countries face, including instances of discrimination against minority 
groups, and, if confirmed, I will continue to raise these issues. 
However, a larger part of our human rights work with Switzerland and 
Liechtenstein is our common efforts to advance human rights around the 
globe.
    Human rights are a core value Switzerland advocated for 
multilaterally and bilaterally. Swiss efforts played a role in the 
releases of Chibok girls from Boko Haram in Nigeria in October 2016 and 
May 2017. Switzerland also holds regular human rights consultations 
with China, Russia, Iran, Vietnam, Cuba, Indonesia, and Tajikistan. In 
addition, the Government maintains a separate human rights strategy as 
part of the Foreign Ministry's wider strategic agenda.
    We face numerous challenges in this work. Human rights issues 
around the world often seem intractable. Switzerland and the United 
States will sometimes have different areas of emphasis or different 
approaches to a problem. If confirmed, I will continue our work with 
Switzerland to ensure our efforts are coordinated, and that we achieve 
more together than we would have separately, such as with respect to 
major sporting organizations based in Switzerland. Ensuring that we 
keep lines of communication open will maximize our impact.

    Question 3. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Switzerland and Liechtenstein?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of civil society in Switzerland and Liechtenstein, 
including human rights activists and religious groups, and the 
organizations that represent them.

    Question 4. Will you and your embassy team actively engage with 
Switzerland and Liechtenstein to address cases of key political 
prisoners or persons otherwise unjustly targeted?

    Answer. If confirmed, I will engage Swiss and Liechtensteiner 
authorities and call on them to enlist their assistance in the 
resolution of cases involving victims of politically-motivated 
prosecution around the world in a fair and timely manner, respecting 
human rights and fundamental freedoms, including all the protections 
and fair trial guarantees necessary for their defense.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure the Department continues to 
thoroughly vet all individuals and units nominated to participate in 
U.S.-funded security assistance activities, in accordance with the 
Leahy law. If there are findings of credible information regarding 
gross violations of human rights, we will take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible parties do not participate in U.S.-funded 
training and will assist their respective governments to bring them to 
justice.

    Question 6. Will you engage with the Swiss on matters of human 
rights, civil rights and accountable governance as part of your 
bilateral mission?

    Answer. Yes. If confirmed, I will continue the U.S. Mission's 
strong partnership with the Swiss Government and civil society to 
engage on these topics.

    Question 7. What will you do to promote, mentor and support your 
staff who come from diverse backgrounds and underrepresented groups in 
the State Department?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that is diverse and 
        inclusive?

    Answer. I am committed to equal employment opportunity principles. 
If confirmed, I will foster a diverse and inclusive team at Embassy 
Bern and communicate this is a priority for me as the Ambassador. If 
confirmed, I will also urge the Embassy to reflect our whole-of-mission 
commitment to promoting diversity and inclusion. In keeping with 
Secretary Tillerson's strong emphasis on diversity, I will ensure all 
supervisors at the Embassy have access to and avail themselves of 
opportunities to receive regular formal training and regular guidance 
on EEO principles, diversity, and inclusion to sensitize them to these 
important issues and maximize diverse talents in our workforce.

    Question 8. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you or do any members of your immediate family have 
any financial interests in the Switzerland and/or Liechtenstein?

    Answer. My investment portfolio includes diversified mutual funds 
that may have investments in Switzerland and Liechtenstein. However, 
investments in diversified mutual funds are exempt from the conflicts 
of interest rules. I will divest my interests in any future investments 
the State Department Ethics Office deems necessary to avoid a conflict 
of interest. I am committed to ensuring that my official actions will 
not give rise to a conflict of interest, and I will remain vigilant 
with regard to my ethics obligations.

    Question 11. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. I know of no significant change in my financial affairs 
since I filed my report. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest and will remain 
vigilant with regard to my ethics obligations.

    Question 12. Russia Sanctions: Unity with European partners on 
Russia sanctions is critical to their success. What is your diplomatic 
plan to build support within Switzerland for stronger sanctions on 
Russia?

    Answer. If confirmed, I will be committed to working closely with 
Switzerland to maintain unity on Russia sanctions and their 
implementation. The U.S. Government has employed a collaborative and 
consultative approach on sanctions, and I will continue to seek 
feedback from Switzerland, which has been a partner on ensuring 
Switzerland is not used to evade Russia sanctions.
    The administration's goal is to ensure that sanctions support our 
important, common work in resolving the conflict in Ukraine, restoring 
control of Crimea to Ukraine, and preventing future meddling by Russia 
in foreign elections-while also remaining vigilant against unintended 
consequences for our partners. I will likewise remain mindful of our 
many foreign policy priorities, including our commitment to promoting 
European energy security, related to Europe as the U.S. Government and 
the EU implement these sanctions, and Switzerland works to prevent 
their circumvention through entities based in Switzerland. Close 
coordination with our partners is crucial to enabling the sanctions to 
achieve their ultimate goal: imposing costs on Russia, sufficient to 
change the Russian Government's behavior.

    Question 13. Russian Malign Influence: How will you seek to boost 
resilience to Russian meddling within Swiss institutions and civil 
society? What assistance priorities will you push with Swiss 
counterparts to shore up resilience elsewhere in Europe?

    Answer. Russia is engaged in a campaign of disinformation and 
malign influence activities to undermine core institutions of the West 
and to weaken faith in the democratic and free-market systems. In 
Europe, the United States is seeking to reduce vulnerabilities, 
strengthen democratic institutions, eliminate corruption, and diversify 
energy supplies. The effects of Russian pressure continue to be 
greatest in the neighboring states of Ukraine and Georgia, where Russia 
undermines the sovereignty and territorial integrity of those 
countries. The Western Balkans are also increasingly a target, as 
Russia is trying to block the Euro-Atlantic integration of the region. 
It is important our assistance deter Russian aggression against these 
countries as well as encourage reforms in them to eliminate fraud and 
abuse and reorient their economies away from Russian economic pressure.
    If confirmed, I will promote cooperation with our partners to build 
resilience in Switzerland. I will push for the continuation of programs 
that promote the protection of human rights, build and reinforce the 
rule of law, support democratic institutions, and promote economic 
development in vulnerable countries in partnership with Switzerland. 
Furthermore, I will work closely with Switzerland as I contribute to 
the U.S. Government's implementation of the Countering America's 
Adversaries Through Sanctions Act to maintain unity on implementation 
of sanctions in order to further exert economic pressure on Russia to 
modify its aggressive behavior.

    Question 14. If the United States withdraws from the Joint 
Comprehensive Plan of Action without evidence of a material breach, how 
do you anticipate that Switzerland will respond based on statements 
from the past few weeks as well as EU statements?

   Do you believe that the best policy for the United States, if we 
        walk away from the nuclear agreement with Iran, is to impose 
        sanctions on European companies and banks that continue to do 
        business with Iran?
   What national security priorities other than Iran could be 
        negatively impacted by tensions in the transatlantic alliance 
        stemming from unilateral U.S. withdrawal from the JCPOA?

    Answer. The administration is currently conducting a review of the 
JCPOA and our broader approach to Iran. While that review is ongoing, 
the United States continues to implement its JCPOA commitments, and 
expects Iran to do the same. In addition, the United States seeks to 
ensure strict implementation of the JCPOA, a goal shared by Switzerland 
and our European partners. I cannot prejudge the outcome of the 
administration's review in terms of sanctions implications or how 
Switzerland will respond.
    Regardless of the outcome of the administration's review, unity 
with Europe will be crucial. If confirmed, it will be one of my highest 
priorities to ensure that we closely coordinate with Switzerland to 
ensure the effectiveness of any measures to prevent Iran from obtaining 
a nuclear weapon, steps to combat Iran's malign activities more 
broadly, including its ballistic missile program and support for 
terrorism, and other U.S. national security priorities.

    Question 15. International cooperation to address climate change is 
a top priority for Switzerland and Liechtenstein. The U.S. is 
historically, across multiple past administrations, a constructive 
partner with Switzerland, Liechtenstein, and other European allies on 
addressing climate change through multilateral forums including the 
UNCCC and the Paris Agreement, the IPCC, G20, G7, the GEF and GCF. 
Given the President's antipathy towards international cooperation on 
climate change, how do you intend to approach this issue that 
Switzerland's and Liechtenstein's leaders care deeply about?

    Answer. The administration supports a balanced approach to climate 
policy that lowers emissions while promoting economic growth and 
ensuring energy security. The President determined the terms of our 
current engagement in the Paris Agreement did not balance those 
factors, and on June 1, he announced the intent to withdraw from the 
Paris Agreement. As the President has indicated, he is open to re-
engaging in the Paris Agreement if the United States can identify more 
favorable terms. The United States respects the efforts of those 
countries that continue to participate in the Paris Agreement.
    At the G20 Leaders' Summit in Hamburg, Germany, the United States 
joined the other G20 members in reiterating a collective commitment to 
mitigate greenhouse gas emissions, including through increased 
innovation in sustainable and clean energy and energy efficiency, and 
working towards low greenhouse-gas emission energy systems. If 
confirmed, I look forward to working with Swiss and Liechtensteiner 
interlocutors and our European allies to seek common ground and develop 
a way forward on this important issue.



                               __________





                              NOMINATIONS

                              ----------                              


                    TUESDAY, OCTOBER 3, 2017 (a.m.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker, Gardner, Young, Portman, Cardin, 
Coons, Kaine, Markey, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    There will be some Senators here in a moment to introduce 
our distinguished nominee, but they wanted us to go ahead and 
get started. We typically give them the courtesy of going first 
so they can move on to other business.
    So, Mr. Juster, it is a pleasure to welcome you here today 
and we are glad that you are the nominee to be our next 
Ambassador to India.
    As one of the two largest democracies in the world, the 
United States and India share a strategic interest in promoting 
and maintaining stability in the region.
    Just last week, Secretary Mattis met with Prime Minister 
Modi in New Delhi, underscoring the importance of our two 
countries' growing security cooperation. As these talks 
highlighted, the United States and India continue to work 
closely together to promote stability and economic development 
in Afghanistan, confront terrorist threats, and preserve 
freedom of navigation in the Indian Ocean and the South China 
Sea.
    In recent years, the United States and India have partnered 
together with regional players, including Japan and Australia, 
to address regional and global differences. These partnerships 
are critical to preserving rule of law principles that form a 
basis for economic and political stability throughout the 
region.
    Nearly a decade ago, the U.S.-India civil nuclear agreement 
was heralded as the beginning of a new era in our relationship. 
While there has been steady progress in relations between 
Washington and Delhi, the aspirational nature of the civil 
nuclear deal has left both countries struggling to meet 
unrealistic expectations. I know we talked at length about that 
yesterday.
    In particular, I remain frustrated by the slow pace of 
Indian reforms in the economic sphere. American companies 
continue to face barriers to Indian market access, including 
high tariffs and strict localization policies. The companies 
that are able to enter the Indian market often counter 
compulsory licensing requirements and lax intellectual property 
protections. The foreign investment environment remains 
unpredictable and even large-scale contracts are subject to 
alteration or cancellation without cause. Clearly, the economic 
playing field is not even.
    Additionally, the space for civil society in India 
continues to shrink as Hindu nationalism rises and 
international NGOs face undue scrutiny.
    I also remain concerned about the scale of India's human 
trafficking problem, including bonded labor. The State 
Department's Trafficking in Persons report ranks India as a 
tier 2, citing the government's record of investigations and 
prosecutions as being disappointingly low.
    Mr. Juster, you will be in a unique position to shape the 
U.S.-India relationship for the coming years. It will be 
important to continue progress on security cooperation, 
including in new areas like North Korea, as you seek a level 
playing field for American companies.
    I urge you to pursue an open and candid dialogue with our 
Indian counterparts about the roadblocks in our relationship. 
The time is long overdue for breaking the cycle of expectation 
and disappointment, and I look forward to hearing your vision 
for normalizing U.S.-India relations.
    Thank you.
    Senator Warner, we typically ask Senators to go first as a 
courtesy and do our opening comments after. We went ahead and 
began because we understood you might be as much as 10 minutes 
late. So Senator Cardin will give his comments, and then we 
will introduce you. But typically we bend over backwards.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. And I know that Senator Warner wanted to 
listening to my opening comments. It is wonderful to have 
Senator Warner here. I know at least one of his conflicts 
because the Senate Finance Committee is also meeting on 
business taxes. So I promise to give a short opening comment.
    I do want to first, Mr. Chairman, if I might, note that 
this is one of, I think, three hearings we are having this week 
on nominations. And speaking on behalf of the Democrats--and I 
mean this as a compliment--we are following the path that you 
set in the last Congress in considering President Obama's 
hearings in our committee. You did it in a very timely way. You 
facilitated those hearings as quickly as we could have them. 
And I have instructed our staff and particularly our ranking 
members of the subcommittees that will be holding two 
additional hearings that we want to accommodate, as quickly as 
possible, President Trump's nominees particularly for key 
positions and ambassadorships. And we have done that, and I 
want to thank our ranking members.
    I do want to just note one disappointment if I might, and 
that is we were not able to proceed this week on the nominee 
for South Sudan, which is a career person. South Sudan is in a 
critical situation. I think it is important that we have a 
confirmed ambassador as quickly as possible for that country 
considering the urgency of the humanitarian crisis in the 
country that exists.
    So we are going to continue to work very closely with you 
and try to get as many of these nominees' hearings as possible. 
We had hoped that the Trump administration would submit them to 
us in a more timely way. They are now bunched up, but we will 
do everything we can to advance these nominees.
    And to Mr. Juster, it is a pleasure to have you here. I 
enjoyed our conversation. You bring incredible credentials, and 
I acknowledge that. And I had a very good meeting with you, and 
I very much appreciated our opportunity to talk about many of 
the issues that confront India.
    The chairman has already mentioned that the United States 
and India are the two largest democracies in the world. Our 
relationships have grown stronger over time. But there are 
still challenges, and the chairman mentioned several of those 
challenges. He mentioned the commerce issues, which are real 
challenges as to how we are going to advance the commerce 
issues. He also mentioned trafficking, which is a significant 
problem in India. No question about it. There are also other 
human rights challenges in that country, including the 
registration laws that can be used inappropriately including 
areas of India that, because of their federalism system--and I 
was very impressed with your knowledge of the challenges of 
India as a democratic country in dealing with the problems. The 
central government cannot handle some of the issues in such a 
large country.
    But we need to do better. We need to work together to deal 
with the human rights struggles, with the commerce issues. 
Security cooperation has been pretty strong. And, of course, we 
also have the challenges that deal with their neighbors that 
bring up why it is so important that we all work together.
    So my plea is that work with this committee. We share the 
same goals. We share the same desires. And I think Congress and 
the mission--working together we can advance the partnership 
and even make it stronger.
    It is a pleasure to have you here, and I thank your family 
for being willing to share your talent with this country.
    The Chairman. I want to thank you again for being here, and 
certainly we are always honored to have Senators, but 
especially Senator Warner who we work with very, very closely. 
I know he has got very big demands on his time. Sorry you had 
to sit through our opening comments for a moment, but we do 
thank you for coming in to introduce our nominee who we are all 
very impressed with. Thank you, and if you would go ahead and 
say whatever it is you wish to say and leave and get on to 
Intelligence or Finance or some other committee. Again, thank 
you for being here today. We very much appreciate it.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, sir. Chairman Corker, Ranking 
Member Cardin, members of the Senate Foreign Relations 
Committee, thank you for the opportunity allowing me to 
introduce my friend, Ken Juster.
    I would note, Mr. Chairman, you and I having worked 
together for so long, knowing your punctuality, I would reflect 
for the record that I did get here at 10:04. So that was still 
pretty good to----
    The Chairman. That is about a 15-minute improvement for 
you. [Laughter.]
    Senator Warner. [continuing] I am here for a couple of 
reasons. One, as co-chair of the Senate India Caucus, this 
appointment is very important. My co-chair, Senator John 
Cornyn--he has got another meeting this morning, but he wanted 
to make sure that he conveyed to the committee as well his 
strong support for Ken's nomination. So clearly both of us from 
the Senate India Caucus support this.
    I will also acknowledge that Ken and I went to law school 
together. He did slightly better than I at law school. We had 
different focuses. But he has had an extraordinarily 
distinguished career.
    And as you have mentioned, this relationship between the 
two world's largest democracies is absolutely critical. Ken has 
worked on U.S.-India relations for more than 16 years. He has 
held leadership positions in a number of important 
organizations: Freedom House, where he worked on human rights 
works; the Asia Foundation, where he worked on development 
issues; the University of Pennsylvania Center for Advanced 
Study of India; and the U.S.-India Business Council.
    He has also worked on our bilateral relations inside the 
Federal Government because from 2001 to 2005, Ken was the Under 
Secretary of Commerce for the Bureau of Industry and Security. 
In that capacity, he was at the intersection of business and 
national security issues, including strategic trade controls, 
imports and foreign investments that obviously affect U.S. 
security. During that time, he founded and chaired the U.S.-
India High-Tech Cooperation Group and was a key architect in 
the Next Steps in Strategic Partnership.
    I think both you and the ranking member have outlined some 
of the challenges: human trafficking, other issues around 
building strong democratic institutions in India. I would point 
out on the security side, we continue to make great strides. 
One of the things I think that is extraordinarily important--
and Ken and I talked about this as he prepped for this 
meeting--we have seen the trade relationship grow from about 
$10 billion to $115 billion. We expect that to grow to $500 
billion over the next few years.
    So because of his distinguished career, I think Ken will 
serve our Nation well, and again, let me reiterate both my and 
John Cornyn's strong bipartisan support as co-chairs of the 
India Caucus. And I think the President could not have made a 
better choice.
    And I appreciate again the chair and the ranking member for 
my opportunity to introduce who I hope you will soon confirm on 
a speedy basis.
    The Chairman. Thank you, and thanks for your leadership on 
so many issues relative to India.
    With that, Mr. Juster, I know you have some family members 
here that you cherish. You are welcome to introduce them and 
begin your testimony. If you could keep it to about 5 minutes, 
that would be great. Any written documents you have will be 
entered into the record, without objection.

   STATEMENT OF HON. KENNETH IAN JUSTER, OF NEW YORK, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF INDIA

    Mr. Juster. Thank you. Chairman Corker, Ranking Member 
Cardin, and members of the committee, it is a great honor to be 
with you today as President Trump's nominee to be U.S. 
Ambassador to the Republic of India. I would like to express my 
gratitude to the President and the Secretary of State for the 
confidence and trust they have placed in me to take on this 
important position.
    I would also like to thank Senator Warner for that very 
kind introduction.
    If confirmed, I look forward to working with each of you to 
advance our strategic partnership with India, a relationship 
that is critical to promoting U.S. national security and 
economic interests.
    I am very pleased to be joined this morning by my mother, 
Muriel Juster, who recently celebrated her 90th birthday; my 
cousins, Emily Randall and Cindy Camp; and several close 
friends. Other members of my family were unable to attend, but 
I greatly appreciate their support. I regret that my father, 
the late Howard Juster, is not here with us. He would have been 
very proud to see me testify before this committee.
    Over the years, I have been fortunate to be involved in a 
range of matters relating to India both in government and the 
private sector. The remarkable evolution of U.S.-India 
relations truly has been a bipartisan undertaking and has 
benefited from strong leadership and support in the Congress.
    As Under Secretary of Commerce during the first term of the 
Bush administration, I worked closely with officials in 
Washington and in New Delhi on this effort. With India's 
Foreign Secretary, we formed the High Technology Cooperation 
Group to identify and remove tariff and non-tariff barriers to 
commerce in this sector. Working with my colleagues in the U.S. 
Government, we also developed an initiative known as the Next 
Steps in Strategic Partnership. This initiative provided a road 
map for expanded cooperation with India in civil nuclear 
activities, civil space programs, and high technology trade. 
And the success of this effort laid the foundation for the 
civil nuclear agreement.
    When I returned to the private sector in 2005, I remained 
involved in a variety of U.S.-India business and policy issues. 
If confirmed, I believe that my familiarity with government 
officials, business people, and academic and think tank leaders 
in both countries will enhance my ability to represent the 
United States.
    From my perspective, the first priority of a U.S, 
Ambassador is to promote U.S. interests and be an exemplary 
representative of the U.S. Government and the American people. 
If confirmed, I will join with the dedicated men and women who 
work at our mission in India in protecting our homeland and 
advancing the interests and welfare of nearly 800,000 American 
citizens present in India at any given time. I also will strive 
to ensure the safety and well-being of our mission employees 
and their families.
    As has been mentioned, India and the United States share 
common values and a commitment to democracy, pluralism, and the 
rule of law. The administration firmly believes that a strong 
India and a strong U.S.-India relationship are in America's 
interest. India's role in the Indo-Pacific region and globally 
will be critical to international security and economic growth 
over the course of this century.
    There are many elements of our effort to expand and enhance 
the strategic partnership between our countries. One key pillar 
is to deepen defense and security cooperation, building on the 
U.S. recognition of India as a major defense partner. Together, 
our countries seek to ensure freedom of navigation, overflight, 
and commerce, and advance a rules-based democratic order 
throughout the Indo-Pacific region.
    If confirmed, I also look forward to engaging my 
counterparts in India to strengthen our cooperation on the most 
pressing challenges to regional security and global peace, from 
the DPRK's destabilizing pursuit of nuclear weapons to the 
growing threat that all forms of terrorism pose to our people. 
In addition, I will make it a priority to work closely with New 
Delhi to promote security and stability in Afghanistan, where 
India already has provided billions in economic support.
    In the economic sphere, Prime Minister Modi has undertaken 
important reforms, including the landmark Goods and Services 
Tax, though there is more to be done. If confirmed, I look 
forward to identifying ways that the United States can be a 
partner in these reform efforts to the mutual benefit of our 
business communities and our citizens.
    India's 1.3 billion people and its rapidly expanding middle 
class represent a significant market opportunity for U.S. goods 
and services. As the former Deputy Assistant to the President 
for International Economic Affairs, I appreciate the imperative 
to expand free, fair, and balanced trade. We will pursue that 
goal by working with India to improve and expedite regulatory 
processes, ensure that technology and innovation are fostered 
and protected, and increase market access for U.S. firms.
    A critical element in realizing the potential of our 
economic relationship will be to elevate our energy ties so 
that more natural gas, clean coal, crude oil, and renewable 
technologies are available to fuel India's growth and support 
U.S. jobs.
    In addition, we will seek to strengthen our collaboration 
in a number of other important areas including, as mentioned by 
the chairman and the ranking member, human rights and 
trafficking in persons, law enforcement cooperation, science 
and technology, space, health, and agriculture.
    As we move forward in these efforts, an essential 
foundation of our relationship is our people-to-people ties. 
There are nearly 4 million India Americans living in the United 
States, a community that exemplifies the spirit of innovation, 
entrepreneurship, and strong values that our countries share. 
If confirmed, I will continue to emphasize our public diplomacy 
efforts in India, including our educational and cultural 
exchanges.
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for the opportunity to appear before you 
today. I look forward to working with you and other Members of 
Congress on the important role that you play in the U.S.-India 
relationship. I welcome your questions.
    [Mr. Juster's prepared statement follows:]


                Prepared Statement of Kenneth I. Juster

    Chairman Corker, Ranking Member Cardin, and members of the 
committee, It is a great honor to be with you today as President 
Trump's nominee to be the United States Ambassador to the Republic of 
India. I would like to express my gratitude to the President and the 
Secretary of State for the confidence and trust they have placed in me 
to take on this important position. If confirmed, I look forward to 
working with each of you to advance our strategic partnership with 
India--a relationship that is critical to promoting U.S. national 
security and economic interests.
    I am very pleased to be joined this morning by my mother, Muriel 
Juster; my cousins, Emily Randall and Cindy Camp; and several close 
friends. Other members of my family were unable to attend, but I 
greatly appreciate their support during this process. I regret that my 
father, the late Howard Juster, is not here with us. He would have been 
very proud to see me testify before this committee.
    My father was an architect and avid photographer. In 1966, when I 
was 11 years old, my mother and he traveled to India. I still have 
vivid memories of the many photographs he took there. That trip sparked 
my interest in this vast and diverse country and its people.
    In more recent years, I have been fortunate to be involved in a 
range of matters relating to India, in both government and the private 
sector. The remarkable evolution of U.S.-India relations truly has been 
a bipartisan undertaking, and has benefited from strong leadership and 
support in the Congress. Building on the trip that President Clinton 
took to India in March 2000, President Bush and Prime Minister Vajpayee 
committed in November 2001 to transform the relationship between our 
two countries--the world's oldest and largest democracies.
    As Under Secretary of Commerce during the first term of the Bush 
administration, I worked closely with officials in Washington, D.C. and 
New Delhi on this effort. With India's Foreign Secretary, we formed the 
High Technology Cooperation Group to identify and remove tariff and 
non-tariff barriers to commerce in this sector. Working with my 
colleagues in the U.S. Government, we also developed an initiative 
known as the Next Steps in Strategic Partnership. This initiative 
provided a roadmap for expanded cooperation with India, through a 
series of reciprocal steps, in civil nuclear activities, civil space 
programs, and high-technology trade--three of the most contentious 
issues in our relationship at the time. The success of this effort laid 
the foundation for the historic civil nuclear agreement and our broader 
partnership.
    When I returned to the private sector in 2005, first as an 
executive at a technology company and then as a partner at an 
investment firm, I remained involved in a variety of U.S.-India 
business and policy issues. This included serving on the Boards of the 
Asia Foundation, the U.S.-India Business Council, and the University of 
Pennsylvania's Center for the Advanced Study of India, as well as 
participating periodically in the Aspen Institute's U.S.-India 
Strategic Dialogue and other relevant forums. If confirmed, I believe 
that my familiarity with government officials, business people, and 
academic and think tank leaders in both countries will enhance my 
ability to represent the United States in India and advance our 
bilateral relationship.
    From my perspective, the first priority of a U.S, Ambassador is to 
promote U.S. national interests and be an exemplary representative of 
the U.S. Government and the American people. If confirmed, I will join 
with the dedicated men and women who work at our Mission in India in 
protecting our homeland and advancing the interests and welfare of the 
nearly 800,000 American citizens present in India at any given time--
either living there or visiting. I also will strive to ensure the 
safety and well-being of our Mission employees and their families.
    The Trump administration fully appreciates India's long and rich 
history. India and the United States share common values and a 
commitment to democracy, pluralism, and the rule of law.
    The administration views India as a leading power and a true 
friend, whose influence internationally is important and growing. A 
strong India and a strong U.S.-India relationship are in America's 
interest. India's role in the Indo-Pacific region and globally will be 
critical to international security and economic growth over the course 
of this century. The administration will build on the excellent meeting 
that President Trump and Prime Minister Modi had in June of this year 
in seeking to deepen our partnership for the benefit of the people of 
both countries, and in the interest of shaping a freer, more secure, 
and more prosperous world.
    There are many elements of our effort to expand and enhance the 
strategic partnership between our two countries and advance common 
objectives. One key pillar is to deepen defense and security 
cooperation, building on the U.S. recognition of India as a Major 
Defense Partner.Together, our countries seek to ensure freedom of 
navigation, overflight, and commerce, and advance a rules-based, 
democratic order throughout the Indo-Pacific Region.
    If confirmed, I also look forward to engaging my counterparts in 
India to strengthen our cooperation on the most pressing challenges to 
regional security and global peace, from the DPRK's destabilizing 
pursuit of nuclear weapons to the growing threat that all forms of 
terrorism pose to our people. In addition, I will make it a priority to 
work closely with New Delhi to promote security and stability in 
Afghanistan, where India already has provided billions of dollars in 
economic support and is a longstanding partner for peace.
    In the economic sphere, Prime Minister Modi has undertaken 
important reforms, including the landmark Goods and Services Tax. His 
government has liberalized foreign direct investment in several sectors 
and is working to improve the ease of doing business. If confirmed, I 
look forward to identifying ways that the United States can be a 
partner in these reform efforts, to the mutual benefit of our business 
communities and our citizens.
    India's 1.3 billion people and its rapidly expanding middle class 
represent a significant market opportunity for U.S. goods and services. 
As the Deputy Assistant to the President for International Economic 
Affairs during the first five months of the administration, I 
appreciate the imperative to expand free, fair, and balanced trade 
between the United States and India. We will pursue that goal by 
working with the Government of India to improve and expedite regulatory 
processes; ensure that technology and innovation are fostered and 
protected; and increase market access for U.S. firms.
    A critical element in realizing the potential of our economic 
relationship will to elevate all aspects of our energy ties, so that 
more natural gas, clean coal, crude oil, and renewable resources and 
technologies are available to fuel India's economic growth and 
inclusive development, as well as to support U.S. jobs.
    In addition, we will seek to strengthen our collaboration in a 
number of other important areas, including human rights and trafficking 
in persons, law enforcement, science and technology, space, health, and 
agriculture.
    As we move forward in all of these efforts, an essential foundation 
of our bilateral relationship is our people-to-people ties. There are 
nearly four million Indian Americans living in the United States--a 
community that exemplifies the spirit of innovation, entrepreneurship, 
and strong values that our two countries share. There also are over 
165,000 Indian students attending U.S. educational institutions. 
Collectively, they contribute more than $5 billion to the U.S. economy 
and support tens of thousands of American jobs. If confirmed, I will 
continue to emphasize our public diplomacy efforts in India, including 
our educational and cultural exchanges. These and other outreach 
activities are central to strengthening our partnership with the Indian 
government and its people, and advancing our foreign policy goals.
    Chairman Corker, Ranking Member Cardin, and members of the 
committee, thank you for the opportunity to appear before you today. I 
look forward to working with you and other Members of Congress on the 
important role that you play in the U.S.-India relationship. I welcome 
your questions.


    The Chairman. Thank you very much.
    Senator Cardin?
    Senator Cardin. Mr. Juster, in our conversations, I 
underscored the importance of the relationship, and I think it 
is getting stronger. There are a lot of good things we could 
talk about, but I am going to spend my time dealing with 
challenges that we have between our two countries.
    First, although the chairman just walked out, in honor of 
our chairman, who has been the leader on trafficking issues on 
this committee, the largest democracy in the world--obviously, 
the numbers are going to reflect larger numbers. There are 18 
million people in India estimated in bonded labor, slavery. 
That number is unacceptable. There are regions of India that 
have significant problems in trafficking.
    How do you plan to make that a priority of our embassy to 
work with the Indian Government to address this issue?
    Mr. Juster. Well, thank you very much for that question, 
Senator Cardin.
    And I do want to emphasize that that will be a priority of 
mine. As you know, I have served as the head of Freedom House 
for 2 years and was on the board for 7 years. And so these 
issues are of great concern to me and of our government. And 
the Indians are also very concerned with this. If you read the 
vibrant Indian press and see civil society, they discuss these 
issues at great length. Nonetheless, especially at the state 
and local level, these problems persist, as indicated in our 
Trafficking in Persons report.
    We at the embassy, if confirmed, will take this as a very 
high priority. I know a lot of work is already being done in 
terms of public outreach, in terms of law enforcement 
cooperation, and it is something that I will, if confirmed, and 
am on the ground try to figure out the best interlocutors to 
move this forward. And again, it is not just going to be at the 
national level, but the state, the local level. It is meeting 
with NGOs, providing shelter for people who are victims.
    Sorry.
    Senator Cardin. Yes. I was going to say I hope you work 
with us on that. I agree with what you are saying.
    I just really want to respond. It is a democracy. There is 
ample press coverage of the trafficking issues. No question 
about it. The government gets a little bit defensive at times 
on these issues, and there is a federalism problem on the 
trafficking issues. So I hope that you will report back to us 
the progress that you have made and not just wait for the 
annual TIP reports but to work with us because India, being the 
largest democracy, what they do is very reflective of our 
ability with other countries to be able to get the type of 
progress that we expect.
    The other major human rights issue I just want to go into--
and there is a lot we could go into--is working with NGOs, 
particularly those who may be restricted or prohibited by 
authorities under the new foreign NGO management law. It seems 
to me that our embassy can play a very important role in 
protecting the rights of civil societies and NGOs.
    Mr. Juster. Senator, first, let me reiterate, as I 
indicated in my statement, that I very much look forward, if 
confirmed, to working with you and other members of the 
committee on the whole range of issues that relate to India. I 
welcome visits from the committee and from other Members of 
Congress, and I certainly, when back in Washington, will seek 
out you and other members as well to report on these issues. So 
that is a very high priority.
    With regard to NGOs, there have been regulations that need 
to be enforced in an even and transparent way. I am concerned 
that it seems that some foreign NGOs seem to be singled out at 
times. I will, again, if confirmed, want to get a better handle 
on those issues on the ground, but certainly will be meeting 
with members of civil society. I was very active in civil 
society in this country, and a vibrant civil society is 
critical to a well functioning democracy. So that is, again, an 
important priority.
    Senator Cardin. And I will be sending--I send all our 
missions reminder letters of what the nominees said during 
confirmation hearings on advancing human rights. So expect 
that. And we would like regular reports on the progress being 
made in regards to advancing our values on human rights.
    Another potential problem could be the enforcement of 
sanctions most recently against Russia. We also, of course, 
have other sanction issues. And India has not been as strong as 
they could on enforcing sanction laws.
    How do you intend to represent the U.S. interests in 
India's compliance with sanctions?
    Mr. Juster. I am not familiar with what may be the 
specifics on the Russian sanctions and whether India is in 
compliance with those or not. But sanctions generally are 
something that are a part of U.S. law, and if that is the case, 
we will be seeking to enforce them very actively. I do know 
during the Iran process that India did comply with sanctions 
and did lessen its oil imports from Iran. And my understanding 
is they have been complying with the North Korea sanctions. But 
that is an issue, again, that would be something that we would 
take seriously. And again, on the Russian sanctions, I would 
need to dig in further on that, if confirmed.
    Senator Cardin. And the last area on challenges I want to 
just mention briefly is that during the Paris Climate 
negotiations, India was a partner with the United States in 
advancing the international agreement. Now that the U.S. 
position is not as clear as it was a year ago in regards to our 
participation on climate talks, that could be a real challenge 
for our India mission with the Indian Government.
    Can you just explain how you will deal with the 
international issues on climate, recognizing that India did 
make certain commitments based upon the U.S.'s requests?
    Mr. Juster. Well, even though the President has indicated 
that he is intending to withdraw from the climate agreement, he 
has also indicated his strong interest in clean air, clean 
technology, clean water. And the United States still has made 
very significant strides. And so I see working with India on 
this as a continued important priority. I know the Indians are 
very interested in expanding the role of renewables in their 
energy demand, and they too are very serious--Prime Minister 
Modi--about environmental concerns which are not insubstantial 
in the country. So I do not see the position we took at the 
climate agreement as affecting my desire, if confirmed, to be 
working with India on clean technology, renewables, and other 
efforts to improve the environment.
    Senator Cardin. I agree with that. I think India is very 
interested from the economic position, as well as from the 
environmental and international, the green energy sources. It 
is an economic issue in their country. A lot of this is our 
technology and shared technology. We have developed 
technologies together. So I think there really is a path 
forward without getting into the politics of membership--where 
we are from the White House. I would encourage you to do that. 
I think there is strong support on both sides of the aisle for 
us to improve those ties with India.
    Thank you, Mr. Chairman.
    The Chairman. Yes, sir. Thank you. And I appreciate you 
bringing up the trafficking and modern slavery issue. We had a 
very good talk yesterday regarding that, and we understand the 
cultural issues that exist in India. But I know our ambassador 
nominee is very committed to that. But thank you for brining 
that up.
    Senator Portman?
    Senator Portman. Mr. Chairman, thank you very much. I 
appreciate your deferring as chair since we all have three 
committees going on at the same time here.
    The Chairman. Especially you. I think you have more 
committees than anyone in the Republican caucus. [Laughter.]
    Senator Portman. Thanks to you.
    The Chairman. Yes, sir.
    Senator Portman. Thanks for giving me the great honor of 
being on this committee, which I love.
    And, Ken, thank you for your willingness to step forward. 
You have got an amazing background, Commerce Department, 
National Security Council, most recently State Department, your 
background with the nongovernmental groups and leadership roles 
you have played in them.
    As you know from our conversations, I am very eager to 
expand our relationship with India. I think it is a tremendous 
opportunity. When I was U.S. Trade Representative, we did start 
the U.S.-India trade policy dialogue. That was 2005. Since 
then, we have tripled our trade with India. And yet, it was 
from such a low starting point, that there is much more to be 
done.
    So I agree with what you said today about fair and balanced 
and free trade. I do continue to have deep concerns about 
market access for some of our products and services, and 
specifically in the intellectual property area that you and I 
talked about.
    Could you just share with the committee briefly some of 
your thoughts on how to level that playing field to ensure even 
more trade between our two great democracies?
    Mr. Juster. Thank you very much for that question, Senator 
Portman.
    Obviously, the economic issues have been a major concern of 
mine. When I was in the private sector, I was on the board of 
the U.S.-India Business Council. There is enormous potential in 
the economic sphere, but we have only begun to scratch the 
surface. We need to continue pressing forward, make sure that 
India adheres to its WTO obligations, and that we can push the 
range of economic issues, whether it be standards and non-
tariff barriers, intellectual property. My hope is as more 
Indian entrepreneurs develop their own intellectual property, 
there will be a greater interest in the protections of it.
    One of my major priorities will be to be a strong advocate 
for U.S. business interests in India. And ultimately I would 
hope that the Indian community would see the economic 
relationship as a strategic asset and part of what can help 
develop our overall strategic partnership and something that is 
in the interests of both countries. And I think as Prime 
Minister Modi moves forward with his reform programs and as he 
seeks to have a high level of growth, it will become 
increasingly clear that U.S. companies can contribute to that, 
and removing some of these barriers to trade would be an 
accelerator in that growth process.
    Senator Portman. Well, thank you. And I agree with you. And 
I think on the reforms that he is pursuing, it helps to have 
the U.S. relationship and we can be a constructive partner in 
that.
    I also think from our perspective, India is an important 
counterweight to the influence that China has in the region, 
and that is not lost on this committee.
    You talked about trafficking. I appreciate your commitment 
to combating that. As you know, the chairman and ranking member 
have a real commitment to work with you on that, as do I.
    You mentioned in your brief testimony abduction of people. 
And let me raise this issue because it is a tricky one but 
really important. I think there are something like 80 cases 
right now of abductions of American kids in India. And it is 
part of our relationship that I think does not get enough 
focus. India has not yet signed the 1980 Hague Convention on 
International Child Abduction. By the way, there are something 
like 95 countries who have signed that, and India should sign 
it. And it basically provides an expedited mechanism to 
adjudicate these child custody disputes that arise and help 
return abducted kids to their rightful homes.
    As you know from our conversation, there are a number of 
Ohio cases, and one recent one is very compelling. And I need 
your commitment here today that you are going to help us both 
with the policy, which is to get India to sign the Hague 
Convention to have this mechanism, but also on these specific 
cases of Ohio kids who have been abducted.
    Could you speak about that briefly?
    Mr. Juster. Thank you for that question, Senator Portman.
    I cannot think of anything more heartbreaking than having a 
parent have their child abducted and not being able to visit 
them or have some resolution of the matter. I think it is also 
heartbreaking for the child who is involved. So this is a very 
serious issue.
    As you have indicated, the Indian Government is not a 
signatory to the Hague Convention. I do not know how likely it 
is that they may become one, but that is certainly, if 
confirmed, an issue that I would pursue. But even if they are 
not in that convention, it is important that there be some 
process for addressing and trying to resolve individual cases. 
And I do commit to you, as I did when we discussed that, your 
case or any other one will be one that I will take very 
seriously and try my best to resolve. I want to meet with the 
individuals who are involved in these and understand their 
stories and their side of the issue. Again, it will be an 
important--I know it is already important--concern for the 
mission in India.
    Senator Portman. Well, thanks for your personal commitment 
to that. It is frustrating when a U.S. parent gets an 
adjudication in India that is positive and yet cannot enforce 
it and, as you say, heartbreaking for that family and 
ultimately for that child.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thanks very much for being here.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Mr. Juster, congratulations on the nomination. I look 
forward to supporting. You are very well qualified to do this 
job, this very important job.
    I was just in a hearing and left to come down here, a 
hearing in the Armed Services Committee, Secretary Mattis and 
General Dunford talking about our strategy in Afghanistan. 
Secretary Mattis just returned from a trip to India and 
Afghanistan where part of the visit was to thank the Indian 
Government for work that they are doing, especially on 
development in Afghanistan, very important work.
    The Indian-U.S. military-to-military relationship is a 
strong one now. India does more joint exercises with the United 
States than any other nation. And this is, obviously, primarily 
a mil-to-mil relationship, but talk a little bit about as 
Ambassador what you might be able to do to further and deepen 
these important security connections between our countries.
    Mr. Juster. Thank you, Senator Kaine. And as you said, that 
is a very important aspect of our overall partnership. In the 
military sphere, 10 years ago we had no sales of military 
equipment to India. We now have $15 billion. There is another 
$30 billion up for bid over the next 7 years, and the United 
States would like to play a strong role in that.
    One thing, therefore, that I would be doing, if confirmed 
as Ambassador, would be to advocate very strongly for the 
Indians to select U.S. manufacturers of equipment. Not only do 
I think it would be good for the military-to-military 
relationship, but it would be good for our trade balance and 
for our economic relationship at the same time.
    As you mentioned, India does more joint exercises than 
anyone else--that it does with the United States than any other 
country. I would want to continue that process. I know they 
just finished a very successful trilateral exercise with Japan 
as well, the Malabar exercise. So continuing those 
opportunities will be important.
    I would look to work closely with the commander in the 
Pacific Command, as well as the Central Command, because India 
straddles the border of those two commands. It is important, as 
you mentioned, that India play a very constructive role.
    It has been a partner of ours in trying to secure stability 
and security in Afghanistan and make that a peaceful place and 
to cooperate more broadly on counterterrorism issues.
    So I think there is a broad range of activities we can do, 
and it will be an important part of, if confirmed, my agenda 
overall, as I said from both a military perspective, also an 
economic perspective, and a broader sense of our strategic 
partnership.
    Senator Kaine. When I was last in India--it was I think 
October of 2014--and Senator King, who serves on the Armed 
Services and Intelligence Committee, and I went to see the 
Indian shipbuilding operation at the Mazagon Dock in Mumbai. 
And I would just encourage colleagues who visit India--they are 
really proud to show off what they have. And then subsequently 
the Indian military leadership has come and toured shipyards 
here, including the shipyard in Virginia. These kinds of 
exchanges I think can really deepen the relationship. So 
encourage visiting delegations to include a mil-to-mil 
component. I would ask you that.
    One of the areas where my constituents reach out to me 
occasionally about India is in the human rights area, and 
usually if they reach out to me, it is dealing with religious 
diversity and especially the treatment of religious minorities, 
especially Sikhs. Not being on the ground and investigating it 
myself, you know, I do not reach fixed conclusions about this. 
But talk a little bit about how you could use a position as 
Ambassador, if confirmed, to advance what really is and should 
be a shared goal of both of our great democracies of religious 
tolerance.
    Mr. Juster. As you mentioned, Senator, India has a great 
tradition of tolerance. It is a multi-religious country, and it 
has the values that we have in that area. Nonetheless, there 
are incidents that occur from time to time in the religious 
area that are troubling and that I would want to, if confirmed, 
work with the Indians on understanding better and seeking ways 
to improve that situation.
    I happened to run into yesterday on my way out of the 
meeting with Chairman Corker Senator Brownback who is going to 
be, if confirmed, the U.S. Ambassador for International 
Religious Freedom. And I urged him to visit India. I know that 
his predecessor had done so, and that is certainly something 
that he is very cognizant of. And it is important that we have 
that dialogue and pursue these issues. Again, if confirmed, 
part of the challenge is to find out the most productive way to 
pursue them and to find the right interlocutors and way to make 
these points.
    But India itself, as you know, has a very active civil 
society that raises these issues and discusses them. And 
ultimately as a democracy, they are going to have to come to 
grips with it. But we can play a very important role in terms 
of our viewpoints on them and our support in this area.
    Senator Kaine. Thank you. It is a great ally and an 
important relationship. And I congratulate you for your 
nomination.
    Thank you, Mr. Chair.
    The Chairman. Thank you, sir.
    Senator Cardin?
    Senator Cardin. I want to follow up on Senator Kaine's 
point and that is trying to find mechanisms in which we can 
advance some of these discussions.
    India was a founding member of the Community of Democracies 
and the UN Democracy Fund. So they have a track record of 
international participation on human rights.
    When I was in India, I had suggested that we should 
institutionalize an exchange on human rights, as we have done 
with other countries where we have a regularly scheduled 
opportunity to have bilateral discussions on the advancement of 
human rights.
    There are many examples of countries which we have done 
this with. The one I think is perhaps is the most successful 
has been Vietnam where we have regularly scheduled human rights 
sessions with a country that we had significant issues with. 
And I think it was one of the reasons why Vietnam was selected 
as a country to participate in the TPP because we had made 
significant advancements on human rights and values so that we 
felt confident enough that we could enter into a trade 
agreement with Vietnam.
    India, of course, is on a different level, and it is not a 
comparison as to where they are on human rights. But it does 
show the value of having these types of scheduled exchanges. It 
is not one-sided. It is shared practices in which we, as the 
two largest democracies, could show our leadership globally on 
democracy and human rights issues.
    Would you consider that? I know I had support from the 
Government of India. They were interested in it. We did not 
pursue it to completion. And I would just ask that you look at 
that as a possible way to advance this agenda.
    Mr. Juster. Thank you, Senator Cardin. It is certainly an 
issue that I would be delighted, if confirmed, to look at and 
to explore and to understand what has occurred in terms of 
raising that issue with the Indians. As I mentioned, they are a 
democracy that grapples with these issues, and we have to 
figure out the most appropriate way to interact with them to be 
productive in advancing the perspective that we have. But I 
would be more than happy, if confirmed, to continue to look at 
that idea.
    Senator Cardin. And we will be glad to work with you on 
that because there are different levels on which they could be 
done. We are not looking at it as a challenge to India but more 
how we share best practices as the two largest democracies and 
where each of us can improve--we have concerns in our own 
country; they have concerns in their country--how we can 
support each other in advancing our global leadership on 
democracy and human rights. I think India has a proud history 
here and joining the United States would give both of us, I 
think, international credibility.
    I thank you and again thank you for your willingness to 
serve our country.
    The Chairman. Senator Coons?
    Senator Coons. Thank you, Chairman Corker and Ranking 
Member Cardin. And thank you for understanding the demands of 
many of us who have several different hearings to go between.
    So I appreciate the opportunity to question you and thank 
you for your ongoing dedication to public service, Mr. Juster. 
I understand your mother is here with you today. Ma'am, thank 
you for raising a wonderful young man who is dedicated to 
serving his country, and to the other members of your extended 
family who are with you.
    In April, Senator Merkley and I had an opportunity to 
travel to India. It was my first trip. He was returning, having 
been an intern in the State Department there, I think, 30 years 
ago. And we had an opportunity to see firsthand how our 
partnerships with the Indian Government help lift families and 
communities out of poverty and, in particular, help to empower 
women and girls. We also had a chance to talk about the 
strategic relationship between these two great, large 
democracies and how that might impact the strategic situation 
in the region. And although our strategic relationship is 
critical to the future of the region, we also sometimes 
overlook how far countries like India have come in fighting 
poverty and disease as a result of targeted interventions where 
USAID and innovative NGOs like CARE and the Gates Foundation 
and others have played a vital role.
    So I have introduced a bipartisan bill that would require 
the U.S. Government to develop a 10-year strategy to end 
preventable maternal and newborn deaths by 2035 and to leverage 
commitments from the private sector, nonprofits, and partner 
countries. And in previous iterations, it has included 
innovative financing vehicles.
    As Ambassador, how might you engage the Indian Government 
to help partner to prevent maternal and child deaths in India? 
And would you work with the private sector and innovative NGOs 
to try and make a significant difference in ending preventable 
maternal and child deaths?
    Mr. Juster. Thank you, Senator, for that question.
    By all means, that is a very important issue. My 
understanding is that there is an active health dialogue 
already with India in that in the embassy there are 
representatives of several of our agencies, including the 
Center for Disease Control, that are involved in that. But 
also, as you mentioned, it is critical that the civil society 
and the private sector be involved. And, again, if confirmed, 
that is something I am comfortable and used to working with and 
would want to advance every avenue that we can to assist and 
work with the Government of India at the state local level to 
deal with what is a tragic issue, would be deaths from 
childbirth and, quite frankly, to deal with other health 
concerns that may arise and need to be dealt with as well. I 
know that tuberculosis has been an area where the embassy has 
worked with the Government of India on and other challenges as 
they arise. We want to do so.
    Senator Coons. Well, the very scale of India makes both, I 
think, morally compelling and challenging the opportunity to 
demonstrate interventions that can then have consequences not 
just on the Indian subcontinent but for the rest of the 
developing world. So my hope is that you will pursue that, 
assuming you are confirmed.
    The H1B visa program allows highly skilled foreign workers 
to come to the United States. And there are some in Congress 
who have been sharply critical of it. President Trump has been 
critical of it. The administration temporarily suspended so-
called premium processing for H1B visas in early March, which 
led to some concern in India. And I have heard some expressions 
of concern from Indian headquartered companies that also 
operate in the United States. When I visited our embassy in New 
Delhi and walked to the visa line to see the process that is 
followed for folks seeking to come to the United States, I saw 
many Indians trying to come to the United States to study at 
our top universities or to contribute to our economy in Silicon 
Valley.
    But what is your opinion of the H1B program? How do you see 
it playing in the U.S.-India relationship? And will you work to 
support ongoing opportunities for highly skilled workers to 
come to the United States, if confirmed?
    Mr. Juster. Well, first, I would note that the embassy or 
the mission in India processes I believe more visas a year than 
any other mission in the world. I think it is well over a 
million. And it is an enormous effort, and part of that is to 
protect our homeland. It is also to facilitate getting 
qualified people to come to our country.
    As you know, the President in April issued an executive 
order for the administration to look into our overall visa 
policies, and that interagency process is not yet completed. So 
I am not really in a position to represent the administration 
on where they are.
    Obviously, the H1B visa has been an important part of the 
India-U.S. relationship. I think there is a consensus that it 
should be directed to high quality jobs, and I think that 
message, from my understanding, is being heard in India, as 
well as in the United States. But again, the actual details on 
what will be the final policy on H1B remain to be determined.
    Senator Coons. Well, thank you.
    One last question, if I might, Mr. Juster, just a parochial 
concern. When it comes to addressing trade imbalances, some are 
familiar with a high quality source of protein called chicken, 
which happens to be the major agricultural export of both the 
States of Delaware and Maryland, among many others. And the 
Indian market is one from which we have been effectively 
excluded for a number of years, and I would hope, if you are to 
be confirmed, to have the opportunity to pursue further with 
you a discussion about how we might access the Indian market 
for this tasty, high quality American agricultural export.
    Mr. Juster. Again, that is a troubling issue. Since 2006, I 
believe, there have not been any imports of poultry. There was 
a WTO case that the United States prevailed in, but in our 
view, India has still not complied with that. So this will be 
another of the trade and business issues that I, if confirmed, 
would be pursuing with the Indian Government.
    Senator Coons. Great. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Thank you so much for being here today. You and I had ample 
time yesterday to talk through numbers of issues.
    To your mother and two friends who have come today, 
typically when we have an extraordinarily well qualified 
person, there are very few people who come. It is usually when 
there is a controversial nominee that is here. So I want to 
second what Senator Coons said about raising a fine son. We are 
glad that someone of his ilk and qualifications and demeanor is 
going to be representing our country in India. I hope you will 
be swiftly confirmed.
    For the record, there will be questions that will be asked. 
We will keep the record open until the close of business 
Thursday. We will have a recess period, as you know, in 
between. But if you could answer those questions fairly 
quickly, it will expedite your confirmation.
    Again, thank you for your willingness to serve. Having 
dedicated, committed, intelligent people like you in these 
positions is very important to our country, and I thank you for 
your willingness.
    Mr. Juster. Thank you very much, Chairman Corker, and I 
will do my best to get those questions back to you as quickly 
as possible. And again, I want to reiterate my desire to work 
with all members of the committee on issues and to, if 
confirmed, welcome you to visit India and certainly continue 
our dialogue.
    The Chairman. I was a little too complimentary because now 
we have someone else. Would you like to ask a question?
    Senator Gardner. Thank you, Mr. Chairman. I will be brief.
    Mr. Chairman, this committee has structured the portfolio 
that we work with a little bit differently than perhaps the 
State Department or the Department of Defense does. India is 
actually in a different subcommittee in this committee than the 
portfolio and how it is handled at the State Department. Would 
it be helpful if we had sort of a realignment on those issues?
    Mr. Juster. I do know that the State Department is looking 
at an overall set of organizational issues. I am not in a 
position to say what they will do overall. But I can tell you 
that I referred to the Indo-Pacific region. I certainly 
consider India critical to Asia, as well as to South Asia and 
Central Asia. I was mentioning earlier that one of the 
challenges is the military has a Pacific Command that goes 
right between the border of India and Pakistan, and part of the 
job of Ambassador and what I would do, if confirmed, would be 
to make sure I have a good relationship with both the Pacific 
Command and the Central Command. And I would make sure again, 
if confirmed, that I would be working closely with people who 
are involved in our Asian and East Asian policy as well as the 
South Asia. But as to how the Department may be organized, I am 
really not in a position to speak to that.
    Senator Gardner. Thank you for that. I think as the 
committee looks to reorganize in the next Congress, that is 
something that we might consider. So thank you.
    The Chairman. With that, the meeting is adjourned.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

     Responses to Additional Questions for the Record Submitted to 
            Kenneth Ian Juster by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have participated in human rights and democracy issues 
for many years. When I worked at the Department of State from 1989 to 
1993, I was one of the key officials involved in establishing and 
managing U.S. assistance programs to Central and Eastern Europe and the 
former Soviet Union. This included working with the National Endowment 
for Democracy (NED) and the American Bar Association's (ABA) legal 
assistance programs to advance the rule of law. I also developed the 
proposal that created the Citizens Democracy Corps, a nonprofit 
organization that mobilizes U.S. private sector expertise to assist the 
countries of Central and Eastern Europe and the former Soviet Union to 
build democratic institutions and free market economies. After leaving 
the U.S. Government early in 1993, I served during the 1990s and 2000, 
on a pro bono basis, as the outside legal counsel of the NED. I also 
joined the Advisory Board of the ABA's Central and East European Legal 
Initiative (CEELI). Subsequent to my service as Under Secretary of 
Commerce from 2001 to 2005, I became a Board Member of Freedom House in 
2009 and served as Chairman from 2014 to 2017.
    While the various organizations with which I have worked on human 
rights and democracy issues each has had a significant impact on 
conditions in other countries, one program at Freedom House that I 
would highlight, and which I emphasized as Chairman, is the Emergency 
Assistance Program. This assistance reaches frontline activists at 
their moment of greatest need, helping them survive attacks, giving 
them the means to resume their critical work and, in many cases, 
literally saving lives. During my time on the Board of Freedom House, 
this program provided assistance to approximately 3,000 human rights 
defenders.

    Question 2. What are the most pressing human rights issues in 
India? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in India? What do you 
hope to accomplish through these actions?

    Answer. India has a rich heritage of cultural, ethnic, and 
religious diversity; a vibrant civil society; strong democratic 
institutions; and a tradition of adherence to the rule of law. However, 
as with many countries, India faces pressing human rights challenges. 
The most significant of these, as cited in the State Department's 
annual Human Rights Report, include instances of security force abuses; 
corruption, which contributes to ineffective responses to crimes, 
including against women, children, and historically disadvantaged 
groups; and societal violence based on gender, religious affiliation, 
or caste or tribe. Other significant human rights issues include 
disappearances, hazardous prison conditions, and instances of arbitrary 
arrest and detention. Trafficking in persons, including bonded and 
forced labor and sex trafficking, also remains a serious problem, as 
noted in the State Department's Trafficking in Persons Report.
    If confirmed, I will lead Mission India's engagement on human 
rights issues. I will commit to engaging openly and honestly on human 
rights with the full range of stakeholders, including, but not limited 
to, representatives of the Government, civil society and NGOs, and 
India's many faiths, castes, and tribes. I will ensure that Mission 
India fulfills its obligations to monitor and report on human rights 
issues and collaborate with the Indian Government and civil society to 
share best practices and promote programs and activities to raise 
awareness and support individuals and groups that have been victims of 
abuse. By engaging directly with the Government of India, I would hope 
not only to strengthen our bilateral cooperation to combat human rights 
challenges, but also to demonstrate global leadership as two leading 
democracies committed to supporting civil society and upholding 
democratic values, transparency, and the rule of law.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in India in advancing 
human rights, civil society and democracy in general?

    Answer. India has a longstanding tradition of pluralism, the rule 
of law, and protection of minority rights. However, as in many 
countries, uneven enforcement of civil liberty protections, corruption, 
lack of political will, and lack of capacity can, at times, undermine 
the enforcement of laws. If confirmed, I will lead Mission India's 
efforts to engage with the full range of stakeholders--from the 
Government, to victims, to civil society--so as to better understand 
the barriers to achieving justice for victims and how we can 
effectively engage to help prevent future abuses.

    Question 4. Will you and your embassy team actively engage with 
India to address cases of persons otherwise unjustly targeted by India?

    Answer. If confirmed, I and Mission India will engage with the 
Indian Government on such cases, and will voice our strong support for 
India's constitution, adherence to the rule of law, and due process.

    Question 5. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will lead and direct the Embassy's 
engagement with the Indian Government, as well as with human rights 
groups, civil society, and other non-governmental organizations in 
India and in the United States. I also will ensure that the Embassy 
continues to vet thoroughly all individuals and units nominated for 
U.S.-funded security assistance, in accordance with the Leahy Law. If 
we identify credible information indicating a gross violation of human 
rights, we will take the necessary steps in accordance with the law to 
ensure that responsible parties do not receive U.S.-funded assistance. 
We also will work with the Indian Government, where applicable, to 
identify any cases of individuals who should be or have been brought to 
justice in the interest of remediating units restricted from receiving 
assistance.

    Question 6. How will you approach human rights issues with the 
Indian Government? Will it be public, private, and will you engage 
local and state governments as well?

    Answer. If confirmed, I am committed to engaging the Government of 
India on human rights issues in a frank and open manner, including 
representatives of state and local governments as appropriate. While 
some of this engagement may be public, some undoubtedly will be in 
private government-to-government discussions. If confirmed, I intend to 
exercise my best judgment and discretion as Ambassador to determine the 
most appropriate and effective means of engagement to advance our 
priority to support human rights in India.

    Question 7. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. My experience in government and in the private sector, as 
well as my involvement with non-governmental organizations, has given 
me the opportunity to build and be a part of high-level teams with 
diverse members. I am committed to the principles of diversity and 
equal employment opportunity. If confirmed, I will seek to foster a 
work environment that recognizes the contributions of all employees, 
and I will make sure they have information available about the 
Department's Diversity and Inclusion Strategic Plan, foreign affairs 
affinity organizations, and opportunities specific to various groups.

    Question 8. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will strongly encourage all supervisors to 
take available courses on equal employment opportunity principles, 
diversity, leadership and management, and related issues. I also will 
urge supervisors to include unconscious bias and similar topics when 
they mentor junior colleagues. I will direct supervisors to provide 
opportunities, transparently and fairly, to all entry- and mid-level 
professionals. By providing time for professional development 
discussions to address diversity, I will highlight that this is a 
priority for the State Department as well as a priority for me as 
Ambassador.

    Question 9. If confirmed, how will you defend against conflicts of 
interest influencing Trump administration policies, particularly the 
status of President Trump's multiple active real estate projects in 
India? Do you commit to bring to the committee's attention (and the 
State Department Inspector General) any change in policy or U.S. 
actions that you suspect may be influenced by any of the President's 
business or financial interests, or the business or financial interests 
of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in India?

    Answer. The State Department Ethics Office and the Office of 
Government Ethics have reviewed my assets and determined that none of 
my holdings pose a substantial risk of creating a conflict of interest 
during my service as Ambassador to India. I am committed to ensuring 
that my official actions will not give rise to a conflict of interest. 
I will divest my interests in any investments the State Department 
Ethics Office deems necessary in the future to avoid a conflict of 
interest, and will remain vigilant with regard to my ethics 
obligations.

    Question 12. Please describe your role as a board member for the 
company Gold Reserve Inc. During your time on the board, did Gold 
Reserve Inc. conduct any business in Venezuela? If so, what was the 
nature of that business?

    Answer. I served as a member of the Board of Directors of Gold 
Reserve Inc. from March 2015 to January 2017. Some brief background 
about Gold Reserve is necessary to understand my role on the Board. 
Gold Reserve acquired and began developing a gold and copper project in 
southeastern Venezuela in 1992 and, from 1992 to 2009, invested close 
to $300 million in acquisition, land exploration, development, 
equipment, and engineering costs. In April 2008, the Government of 
Venezuela arbitrarily revoked the previous authorization for Gold 
Reserve to proceed with construction of this project. Accordingly, in 
October 2009, Gold Reserve initiated an arbitration under the rules of 
the International Centre for the Settlement of Investment Disputes 
(ICSID) of the World Bank to obtain compensation for the losses caused 
by the actions of Venezuela. In September 2014, the ICSID Tribunal 
unanimously granted Gold Reserve an Arbitral Award totaling (i) $713 
million in damages, plus (ii) pre-Award interest, and (iii) legal costs 
and expenses, for a total of $740.3 million, with the Award also 
accruing post-Award interest. The Government of Venezuela did not 
comply with the Award and, instead, challenged its validity. This 
required Gold Reserve to initiate a series of legal actions to seek to 
enforce the Award and also provide the basis, if necessary, for 
attaching assets of the Government of Venezuela. Shortly thereafter, 
the senior partner of a firm that is a large shareholder of Gold 
Reserve, who knows me well, including my extensive prior legal 
experience in international arbitrations and the enforcement of 
arbitral awards, asked me if I would be willing to join the Board in 
order to help provide advice on their legal activities. The Board 
subsequently invited me to become a Director in March 2015.
    During my service as a Director, the Chairman of the Board, the 
CEO, and the President held periodic settlement discussions with 
representatives of the Government of Venezuela and eventually executed 
a settlement agreement. The settlement agreement included a schedule of 
payments by Venezuela for the Award plus interest and entering into an 
agreement for the formation of a jointly owned company to develop a 
gold and copper project on some of the original property plus an 
adjacent property. My role, and that of other members of the Board, was 
to advise on the settlement discussions and authorize and approve the 
settlement agreement. I never met with any Venezuelans during this 
process nor did I travel to Venezuela.

    Question 13. If confirmed, how do you plan on working with Indian 
leaders on improving market access in India to improve U.S.-India 
bilateral trade?

    Answer. U.S.-India bilateral trade has more than doubled in the 
past decade, from $45 billion in 2006 to more than $114 billion in 
2016. If confirmed, I will try to continue to build on that momentum. 
Working with the teams at the Office of the U.S. Trade Representative, 
the Commerce Department, the State Department, and others in the 
interagency, I intend to bring all of Mission India's resources and 
expertise to bear on behalf of U.S. companies and their interests. It 
is also important to note that USTR, with participation from the State 
Department and the interagency, led a delegation to New Delhi on 
September 20 to press the India on the need for concrete outcomes at 
the upcoming Trade Policy Forum on October 26.

    Question 14. From your perspective, what are the biggest 
impediments to a fuller economic relationship with India?

    Answer. India embarked upon economic liberalization in 1991, and 
the growth that has followed has been impressive. However, further 
reforms are needed to sustain high growth. We have had a robust 
economic relationship with India for many years and have consistently 
engaged with the Government of India on the most significant 
impediments to a greater economic relationship, including tariff and 
non-tariff barriers to trade, constraints on access for U.S. companies 
to the Indian market, tax and regulatory policies, and insufficient 
intellectual property rights protection and enforcement. Despite these 
challenges, we believe India offers tremendous potential for increased 
trade and investment, and the United States is well positioned to 
partner with India to advance growth and prosperity for both our 
countries in the years ahead.

    Question 15. Please share your views on the importance of the 
sanctity of contracts between U.S. companies and the Indian Government. 
What steps will you take to ensure that contracts between U.S. 
companies and the Indian Government are honored?

    Answer. As a lawyer, I place great value on contract sanctity, as 
it provides the legal certainty that companies need to engage with 
confidence in business transactions. Questioning the sanctity of 
contracts would undermine U.S. and global investor confidence and, 
ultimately, commercial relationships. I would note that Prime Minister 
Modi has made improving India's standing in the World Bank's Ease of 
Doing Business rankings a primary focus. The United States has 
consistently highlighted that the rule of law, dispute settlement, and 
contract enforcement are critical components of a robust, welcoming 
business climate. These are factors that U.S. and international 
companies consider when deciding whether to do business with India, and 
it is in India's interest to recognize and enforce contracts with the 
private sector. If confirmed, I will strongly advocate with the 
Government of India to ensure the sanctity of contracts.

    Question 16. Do you believe it was the right decision to withdraw 
from the Paris Accords? Do you agree with the scientific consensus on 
climate change that humans are an overwhelming cause of global warming?

    Answer. Given my understanding that the scientific literature 
identifies both human activity and natural variability as important 
influences on the climate, I believe there should be a balanced 
approach of being environmentally friendly and reducing emissions, 
while doing so in a manner that does not put at risk American 
prosperity. In announcing the administration's plan to exit the Paris 
Agreement, the President expressed concerns that this Agreement as 
currently written would harm the American economy and disadvantage 
American workers. The President also indicated that he is open to re-
negotiating the Paris Agreement if the terms are more favorable to the 
United States. Nevertheless, the administration is committed to a clean 
environment, including clean air and clean water, and the United States 
continues to reduce greenhouse gas emissions through innovation and 
technology breakthroughs. The United States stands ready to work with 
other countries, including India, to help them access and use fossil 
fuels more cleanly and efficiently, and help deploy renewable and other 
clean-energy sources, given the importance of energy access and 
security to global peace, security, and prosperity.



                               __________


     Responses to Additional Questions for the Record Submitted to 
                Kenneth Ian Juster by Senator Jeff Flake

    Question 1. In its 2017 Action Report on International Parental 
Child Abduction (IPCA), the State Department identified 13 countries 
that ``demonstrated a pattern of noncompliance according to the 
criteria established in the law.'' One of the 13 countries identified 
is India, which is not a party to the Hague Convention. Approximately 
66 percent of cases filed with the State Department remain outstanding 
for longer than one year, and the State Department has identified India 
as being ``noncompliant'' with efforts to resolve these kinds of cases 
since 2014. In Arizona, there are at least two constituents with 
outstanding cases involving India.

   How do you plan to address the systemic non-compliance with the 
        Indian authorities involved with IPCA cases?
    Answer. I take the issue of parental child abduction very 
seriously. If confirmed, I will encourage the Government of India to 
accede to the 1980 Hague Convention on the Civil Aspects of 
International Parental Child Abduction. I and Mission India also will 
advocate with the Government of India for action to resolve pending 
abduction cases. In addition, we will engage civil-society groups and 
left-behind parents, both in India and the United States, on this 
important issue.

    Question 2. What mechanisms will you recommend the State Department 
employ in order to achieve resolutions to the outstanding cases?

    Answer. If confirmed, I will continue the State Department's effort 
to employ a broad range of political and public diplomacy approaches to 
encourage India's accession to the Hague Convention and to resolve 
pending abduction cases. I believe consistent engagement will be needed 
to achieve progress in resolving abduction cases and moving toward a 
systemic resolution to this important issue.



                               __________


     Responses to Additional Questions for the Record Submitted to 
             Kenneth Ian Juster by Senator Robert Menendez

    Question 1. Child abduction is an issue that affects my 
constituents directly, and is particularly problematic when talking 
about India--a country that has not signed the 1980 Hague Convention, 
and is one of only 13 countries cited as non-compliant by the State 
Department in the 2017 Annual Report on International Child Abduction. 
Per that same report, the largest number of international abduction 
cases of New Jersey children involve India.
    If confirmed, how will you work towards the return of the many 
American children abducted to India? How will you negotiate India's 
accession to the 1980 Hague Convention or another bilateral agreement 
to resolve future child abduction cases between the United States and 
India?

    Answer. I take the issue of parental child abduction very 
seriously. If confirmed, I will encourage the Government of India to 
accede to the 1980 Hague Convention on the Civil Aspects of 
International Parental Child Abduction. I and Mission India also will 
advocate with the Government of India for action to resolve pending 
abduction cases. In addition, we will engage civil-society groups and 
left-behind parents, both in India and the United States, on this 
important issue.

    Question 2. If India continues to be non-compliant, what steps 
would you take to hold their government accountable and continue to 
fight for the rights of the American Citizen parents left-behind?

    Answer. If confirmed, I will continue the Department's efforts to 
employ a broad range of political and public diplomacy approaches to 
encourage India's accession to the Hague Convention and to resolve 
pending abduction cases. I believe consistent engagement will be needed 
to achieve progress in resolving abduction cases and moving toward a 
systemic resolution of this important issue.

    Question 3. India remains on the USTR's Priority Watch list in the 
"Special 301" Report in 2017. Prime Minister Modi promised to promote a 
more fair, competitive, and transparent regulatory framework, but we 
have seen little tangible progress.

   What would you do to encourage Prime Minister Modi to improve 
        governance structures in India that are affecting our U.S. 
        businesses on a daily base? What would you do to raise the 
        issue of IP protection and enforcement with the Indian 
        Government?

    Answer. Strong protection and enforcement of intellectual property 
rights is essential to incentivizing and compensating American artists, 
inventors, and innovators for their ideas and creativity, and 
stimulating global economic growth. If confirmed, I will actively 
encourage Indian Government officials, in meetings and in public 
forums, to strengthen India's intellectual property rights regime so as 
to bring India's laws, regulations, and enforcement activities in line 
with global best practices. I would note that the U.S. Government 
maintains a robust dialogue with the Indian Government on intellectual 
property rights through the USTR-led Trade Policy Forum, among other 
bilateral mechanisms.

    Question 4. In particular, I have been tracking closely the case of 
New Jersey-based MCT Dairies that mistakenly sent a payment of more 
than $130,000 to Punjab National Bank in India in 2014 and is still 
waiting for their money to be returned.

   What would you do to ensure our U.S. Embassy is representing the 
        interest of MCT and similar U.S. companies in India?

    Answer. I appreciate you bringing this matter to my attention. If 
confirmed, I will vigorously support and advocate for U.S. business 
interests abroad, including following up on this specific case.

    Question 5. Since 2005, we have raised these and many other issues 
regarding economic and trade barriers with India at the Trade Policy 
Forum, but we have seen limited results. Do you believe that this 
mechanism has served to advance U.S. economic interests or should it be 
reformed and how?

    Answer. U.S.-India bilateral trade has more than doubled in the 
past decade, from $45 billion in 2006 to more than $114 billion in 
2016. If confirmed, I will try to continue to build on that momentum. 
Working with the teams at the Office of the U.S. Trade Representative, 
the Commerce Department, the State Department, and others in the 
interagency, I intend to bring all of Mission India's resources and 
expertise to bear on behalf of U.S. companies and their interests. It 
is also important to note that USTR, with participation from the 
Department and broader interagency, led a delegation to New Delhi on 
September 20 to press the Indian Government on the need for concrete 
outcomes at the upcoming Trade Policy Forum on October 26. I will be in 
a better position to assess the effectiveness of the Trade Policy Forum 
after I observe its meetings and activities.

    Question 6. I am troubled by India's crackdown on foreign aid to 
NGOs on suspicion of engaging in religious conversions. More than 
11,000 nongovernmental organizations have lost their licenses to accept 
foreign funds since Prime Minister Modi took office in 2014, starving 
important NGOs of access to financial resources. Many of these 
charities are American and have been providing vibrant services to the 
people of India for years.

   What can the US do to protect a vibrant civil society in India and 
        respect for religious freedom?

    Answer. Under the Indian constitution, protections for freedom of 
conscience and belief are very strong. I believe it is important for 
India to uphold these constitutional safeguards, particularly for 
members of religious minorities, in keeping with the country's 
democratic values and history of pluralism and tolerance. I am aware of 
Indian regulations that have adversely affected the operations of a 
number of foreign-funded NGOs. If confirmed, this is an issue that I 
intend to examine carefully. I believe it is imperative that the 
Government of India protect space for civil society, and that all 
parties work together in a spirit of transparency.
    U.S. officials have frequently engaged with Indian Government and 
Indian civil society, including religious communities, to discuss 
religious freedom issues and to underscore the importance of religious 
tolerance. In December 2016, the U.S. Ambassador-at-Large for 
International Religious Freedom visited New Delhi and discussed 
religious freedom, tolerance, and non-discrimination, and opportunities 
for greater U.S.-India collaboration. In addition, Mission India 
regularly organizes outreach events with the full range of minority 
communities and participates in religious holiday celebrations of many 
faiths. If confirmed, I intend to continue this active engagement.



                               __________


    Responses to An Additional Question for the Record Submitted to 
              Kenneth Ian Juster by Senator John Barrasso

    Question 1. Since 2012, India has imposed an anti-dumping duty on 
imports of soda ash from the United States. The duty was set to expire 
July 3, 2017. Instead, it was extended by the Indian Government until 
July 2, 2018. U.S. domestic soda ash producers have expressed concern 
with the Indian Government's review of the legal justification for 
extending the soda ash duty. Specifically, U.S. soda ash producers have 
been troubled by the Indian Government's actions, which seem aimed at 
extending the duty, contrary to long-standing, standard practices.

   As the U.S. Ambassador to India, do you commit to assisting the 
        U.S. soda ash industry to ensure the WTO-consistent application 
        of India's anti-dumping laws and practices?

    Answer. If confirmed, one of my priorities as Ambassador will be to 
promote U.S. exports to India and seek to ensure that India complies 
with its WTO obligations. I would work closely with representatives of 
the U.S. Trade Representative, the Department of Commerce, and others 
on these issues. Collectively, we would seek to assist the U.S. soda 
ash industry with regard to its concerns about India's application of 
its anti-dumping laws and practices.



                               __________


     Responses to Additional Questions for the Record Submitted to 
              Kenneth Ian Juster by Senator Jeanne Shaheen

    Question 1. Disputes along the India-Pakistan border represent a 
potential flashpoint for conflict between two nuclear-armed neighbors. 
In April 2017, U.S. Ambassador to the United Nations Nikki Haley told 
reporters that the Trump administration would seek to "find its place 
to be a part of" efforts to de-escalate India-Pakistan tensions. The 
long-standing U.S. position on this matter has been that such issues 
should be resolved between India and Pakistan. What is your 
understanding of the administration's policy with regard to this issue?

    Answer. My understanding is that the administration's policy is 
consistent with the longstanding position that the United States 
supports bilateral efforts by India and Pakistan to resume dialogue and 
reduce tensions. With regard to Jammu and Kashmir, U.S. policy has not 
changed. The administration supports bilateral dialogue between India 
and Pakistan, with the two countries to determine the pace, scope, and 
character of that dialogue.

    Question 2. I have heard serious concerns from colleges in New 
Hampshire about the sudden and significant decline in student visas 
issued by U.S. consular officers in India beginning in 2016. Several of 
our schools have seen visa denial rates for their accepted students 
from India skyrocket to more than 90 percent. This has had a severe 
economic impact on these schools and their communities, and it damages 
America's reputation abroad. Foreign citizens who study at American 
colleges and universities not only make substantial contributions to 
local American communities, they also gain a broad understanding of our 
country and our people, which they bring back with them to their home 
countries. If confirmed, will you ensure that all visa applications 
received in India are carefully and appropriately adjudicated?

    Answer. My understanding is that approximately 166,000 Indian 
students studied in the United States in 2016. If confirmed, I will 
seek to ensure consistent and objective visa adjudication standards for 
all applications received in Mission India. I agree that foreign 
students contribute to the diversity of our education institutions, 
bring valuable skills and knowledge to our classrooms, and contribute 
to advancements in academic and vocational fields through their work 
and research. I will seek to ensure that those applicants who qualify 
for student visas receive them promptly, consistent with our 
responsibility to administer U.S. immigration law and ensure the 
integrity and security of our country's borders.



                               __________


     Responses to Additional Questions for the Record Submitted to 
               Kenneth Ian Juster by Senator Jeff Merkley

    Question 1. In light of the current humanitarian crisis involving 
the Burmese Government's campaign of ethnic cleansing against the 
Rohingya, there are disturbing reports that some in the Indian 
Government are trying to expel up to 40,000 Rohingya refugees who have 
lived in India for more than a decade, having fled past campaigns of 
persecution. As Ambassador, would you advocate for India to turn its 
efforts to finding options to normalize the status of the resident, 
law-abiding Rohingya in a manner that would permit them to remain in 
India without fear of expulsion?

    Answer. I am aware of press reports regarding statements allegedly 
made by some Indian Government officials about Rohingya refugees who 
are currently living within India's borders. Senior U.S. Government 
officials have called for respect for the rights of the Rohingya people 
and are working closely with the United Nations, other international 
organizations, and the diplomatic community to try to bring an end to 
the crisis in Burma, which also is having a significant impact on the 
South Asia region. If confirmed, I will closely monitor the Rohingya 
refugee crisis and ensure that our Embassy supports the U.S. 
Government's ongoing commitment to helping the Rohingya people.



                               __________





                              NOMINATIONS

                              ----------                              


                    TUESDAY, OCTOBER 3, 2017 (p.m.)

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:00 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake, Gardner, Young, Booker, and Coons.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today the committee will consider the nominations of seven 
experienced career Foreign Service officers to be U.S. 
Ambassadors to African nations. On the first panel, we will get 
to meet the Ambassador nominees to Djibouti, Cameroon, and 
Niger. I was pleased to meet with each of you in my offices 
earlier or a couple of weeks prior. Thank you for making that 
effort of coming in.
    Now, while Djibouti faces high unemployment, poor health, 
and food insecurity concerns, Djibouti has stepped up as a key 
partner on security, countering violent extremism, regional 
stability, and humanitarian efforts. The United States has a 
base in Djibouti. My brother spent several months there just a 
couple of years ago. Small country, big base there. The U.S. 
has a base there. It is located in a country that also hosts a 
Chinese naval base.
    Cameroon is facing domestic political strains and regional 
security threats. It is an important partner in the fight 
against Boko Haram. Cameroon faces serious challenges with 
democracy and governance, as was evidenced this past weekend 
when the government attempted to silence political opposition 
by banning public meetings and travel to the region where 
marches were scheduled to take place.
    Niger faces explosive population growth that could result 
in food shortages. I learned in the visit to my office that I 
guess the birth rate there is close to seven kids per family. 
It almost sounds like where I grew up. [Laughter.]
    Senator Flake. I will tell my 10 siblings about that. But 
that was a surprise to hear.
    This year, Niger has received about $437 million in an MCC 
compact, with the compact to combat food in security through 
improved agriculture and water access. Although Niger has 
increased security threats on its borders, it has contributed 
to peacekeeping operations in other African countries.
    I want to thank each of you for your time and for sharing 
your expertise. And also a big thank you to family members who 
are here. I hope that you will introduce them.
    With that, I will turn to Senator Booker for any comments 
he has.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. I want to thank the chairman of the 
subcommittee for his great work and really valued partnership.
    I really want to thank each of you all for being here today 
and for your years of service to our country.
    I am a little frustrated, as I have expressed already in 
this committee, on the subcommittee as well, about us lacking a 
coherent Africa policy from this administration, especially 
dealing with some of the worst elements of human suffering, 
mass human suffering, on the planet earth right now. Food 
insecurity continues in South Sudan, Nigeria, Somalia. And I 
would want to take a moment right now just to say something 
about one of the countries that is not represented by 
ambassadorial candidates here, but that is South Sudan.
    This subcommittee, with the support and leadership of our 
chairman, held a hearing in July on the conflict and famine in 
South Sudan. I came to the conclusion that despite 
understandable frustration among witnesses and my colleagues 
with the leadership in South Sudan, frustrations borne from 
many legitimate reasons, but the U.S. should maintain its 
leadership and presence there. We can make a difference.
    I understand now there is a difference of opinion on the 
committee about how to move forward with a U.S. Ambassador to 
South Sudan. But I strongly, strongly believe that the U.S. 
should do all it can to ease the horrifying levels of human 
suffering in the country and work with the international 
community in a substantive way to bring about an end to the 
political crisis and to alleviate some of the suffering that is 
going on there that should disturb the conscience of all in 
humanity.
    But it is in that spirit, seeing you all before me, that I 
am eager to ensure that we have solid career service officers 
such as you who are nominated with us today and that you all 
are in place as quickly as possible in the field. You are the 
leadership, in my opinion, that we need. I want to thank you 
all for putting yourself forward. Your careers are 
extraordinary, and the posts that you are being nominated for 
give you the opportunity literally save lives, to literally 
help to influence the justice, and to bring about the values of 
democracy and make them real in people's lives. You are all 
going to countries that are important to many of our strategic 
priorities as a Nation in sub-Saharan Africa. Many are very, 
very tough postings, to countries like Cameroon and Mauritania 
that could either see democratic transitions or could be thrown 
into political crisis.
    If confirmed, many of you all will go to countries that 
represent critical challenges. And I want to say thank you. 
There are questions to be asked, therefore, about how the 
effects and implications of our defense-led foreign policy is 
going to manifest itself in these fragile states. Niger, 
Cameroon, Mauritania face insecurities from violent extremist 
organizations such as Boko Haram, Al Qaeda, Islamic Maghreb, 
and ISIS-West Africa which pose threats to the most vulnerable 
populations in those countries as well as to stability in the 
region.
    However, human rights concerns and abuses by state security 
forces, as well as through media and civil society crackdowns 
that are justified as national security prerogatives, may fuel 
other grievances and continue the cycle of violence.
    We must consider how to balance support for security 
assistance with humanitarian and development aid, especially as 
we see funding for security sector assistance become a 
disproportionate piece of the funding pie in sub-Saharan 
Africa.
    We ask that if you are confirmed, you remain in 
communication with us. It is critical that we have dialogue 
between your posts and our subcommittee. And let us know 
continuously about the challenges you face, what is working 
well, and how we can help you all be effective in your job, 
should you be confirmed.
    I look forward to hearing your testimony today and want to 
thank you again. And I want to say a special thank you as well 
to your family, some of whom are here right now. It is a 
tremendous sacrifice to make not only by individuals who are 
taking on these difficult posts, but as well as the family 
members who empower, their spouses, their parents, their 
brothers or sisters or family members, to do this job. With 
that, I turn it back over to the chairman.
    Senator Flake. Thank you, Senator Booker. With that, we 
will turn to our nominees.
    The first nominee is Ambassador Larry Andre, who is 
currently Ambassador to Mauritania. We met 3 years ago when we 
went through this before. So it is nice to be here for the 
second round. He is an experienced Africa hand serving in 
Tanzania, Kenya, Sierra Leone, Ethiopia, Guinea, Cameroon, and 
Nigeria. In addition, he has been director of the Office of the 
Special Envoy for Sudan and South Sudan and served as senior 
advisor to the Bureau of African Affairs.
    Our second nominee is Peter Barlerin, who most recently 
served as senior bureau official at the State Department's 
Bureau of African Affairs. Postings include Zaire, Madagascar, 
Oslo, Tokyo, Paris, of course, Washington, D.C., and Mali where 
he was Deputy Chief of Mission.
    Our third nominee, Eric Whitaker, most recently was Acting 
Deputy Secretary for East African Affairs. Prior assignments 
have included Chad, Djibouti, Kenya, Sudan, Mozambique, Mali, 
Ethiopia, and Uganda. We are confident that he has a good 
understanding of Africa issues.
    With that, we will recognize Mr. Andre.

STATEMENT OF HON. LARRY EDWARD ANDRE, OF TEXAS, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
               STATES TO THE REPUBLIC OF DJIBOUTI

    Ambassador Andre.  Mr. Chairman, Ranking Member Booker, 
distinguished members of the committee, I am honored to come 
before you as President Trump's nominee to be the next United 
States Ambassador to the Republic of Djibouti. I am grateful to 
the President and Secretary Tillerson for their confidence in 
me. If confirmed, I will work with the committee and the 
Congress to advance U.S. interests.
    I am supported here today by my wife, Ouroukou Andre; by my 
father, Larry Edward Andre, Sr., and by his wife, Claudia 
Andre; my daughter, Ruhiyyih Rahman Andre, could not attend due 
to her responsibilities working for an American firm in the 
renewable energy sector in Kenya. She shares my enthusiasm for 
all that America and Africa can do together.
    Mr. Chairman, Under Secretary for Political Affairs Thomas 
Shannon recently presented the administration's four main 
policy goals for Africa at the U.S. Institute for Peace. If 
confirmed, I will lead our team at Embassy Djibouti to further 
those four goals: advancing peace and security, countering the 
scourge of terrorism, increasing economic growth and 
investment, and promoting democracy and good governance.
    Since 2002, Djibouti has hosted the only enduring U.S. 
military installation in Africa, Camp Lemonnier. It is a 
crucial platform for our armed forces to advance security 
throughout the region. Serving as the headquarters of the 
Combined Joint Task Force-Horn of Africa, the installation is 
home to over 4,000 American soldiers. Ensuring the long-term 
viability and maximum operational flexibility of this important 
security presence is a key priority. If confirmed, I look 
forward to a highly productive and mutually supportive 
relationship with the commander of the Combined Joint Task 
Force.
    The Government of Djibouti counters terrorism beyond its 
borders by contributing peacekeeping troops to the African 
Union mission in Somalia in its fight against Al Shabaab. We 
help train and equip Djibouti's peacekeepers.
    As for increasing economic growth, the World Economic Forum 
recently listed Djibouti as the sixth fastest-growing economy 
in the world, with a GDP growth rate of 7 percent. Despite the 
small size of its market, this growth and Djibouti's strategic 
position present opportunities for U.S. business. If confirmed, 
I will lead our embassy team to further those opportunities for 
U.S. business.
    Mr. Chairman, members of the committee, Djibouti's security 
and prosperity gains can best be protected in the long term by 
strong democratic institutions. To that end, Djiboutians need 
to develop a more competitive, transparent, and accountable 
political system. Next year's legislative elections will give 
us an opportunity to encourage further progress on key 
democratic institutions.
    Having spent my career serving at U.S. embassies in 
dangerous security environments, I feel deeply the 
responsibility of an ambassador toward all resident Americans 
and to all U.S. government employees. If confirmed, I will lead 
our team in Djibouti to take all necessary measures to promote 
the security of American citizens and of U.S. government 
colleagues.
    Finally, I close with a few words about my preparation for 
the great responsibility for which you are considering me. My 
career in Africa began 34 years ago as a fresh-out-of-college 
Peace Corps volunteer working and living in a small village in 
West Africa. As a diplomat since 1990, I have focused my career 
almost exclusively on Africa. As Ambassador to Mauritania since 
September 2014, I lead a highly productive interagency team 
engaged in advancing specific goals. We live up to our motto, 
``One Mission, One Team.''
    Mr. Chairman and members of the committee, if confirmed, I 
will look to you for counsel and support as I seek to build on 
the achievements of my predecessors and their teams in 
advancing an American-Djiboutian partnership based on shared 
values and shared interests. I welcome any questions you may 
have. Thank you very much for your kind consideration of my 
nomination.
    [Ambassador Andre's prepared statement follows:]


             Prepared Statement of Larry Edward Andre, Jr.

    Mr. Chairman, Ranking Member Booker, and distinguished members of 
the committee, I am honored to come before you as President Trump's 
nominee to be the next United States Ambassador to the Republic of 
Djibouti. I am grateful to the President and Secretary Tillerson for 
their confidence in me. If confirmed, I will work with this committee 
and the Congress to advance U.S. interests.
    I am supported here today by my wife, Ouroukou Andre; by my father, 
Larry Edward Andre Sr. and his wife, Claudia Andre; and by my friends 
and colleagues. My daughter, Ruhiyyih Rahman Andre, could not attend 
due to her responsibilities working for an American firm in the 
renewable energy sector in Kenya. She shares my enthusiasm for all that 
Africa and America can accomplish together.
    Mr. Chairman, Under Secretary for Political Affairs Thomas Shannon 
recently presented the administration's four main policy goals for 
Africa at the U.S. Institute of Peace. If confirmed, I will lead our 
team at Embassy Djibouti to further those four goals: advancing peace 
and security, countering the scourge of terrorism, increasing economic 
growth and investment, and promoting democracy and good governance.
    Since 2002, Djibouti has hosted the only enduring U.S. military 
installation in Africa, Camp Lemonnier. It is a crucial platform for 
our armed forces to advance security throughout the region. Serving as 
the headquarters of the Combined Joint Task Force-Horn of Africa, the 
installation is home to over 4,000 American soldiers. Ensuring the 
long-term viability and maximum operational flexibility of this 
important security presence is a key priority. If confirmed, I look 
forward to a highly productive and mutually supportive relationship 
with the Commander of the Combined Joint Task Force.
    The Government of Djibouti counters terrorism beyond its borders by 
contributing peacekeeping troops to the African Union Mission to 
Somalia in its fight against al-Shabaab. We help train and equip 
Djibouti's peacekeepers.
    As for increasing economic growth, the World Economic Forum 
recently listed Djibouti as the sixth fastest-growing economy in the 
world, with a GDP growth rate of seven percent. Despite the small size 
of its market, this growth and Djibouti's strategic position present 
opportunities for U.S. business. If confirmed, I will lead our embassy 
team to further those opportunities.
    Mr. Chairman, members of the committee, Djibouti's security and 
prosperity gains can best be protected in the long-term by strong 
democratic institutions. To that end, Djiboutians need to develop a 
more competitive, transparent, and accountable political system. Next 
year's legislative elections will give us an opportunity to encourage 
further progress on key democratic institutions.
    Having spent my career serving at U.S. embassies in dangerous 
security environments, I feel deeply the responsibility of an 
ambassador toward all resident Americans and to all U.S. government 
employees. If confirmed, I will lead our team in Djibouti to take all 
necessary measures to promote the security of American citizens and of 
U.S. government colleagues.
    Finally, I close with a few words about my preparation for the 
great responsibility for which you are considering me. My career in 
Africa began thirty-four years ago as a fresh-out-of-college Peace 
Corps Volunteer living and working in a small village in West Africa. 
As a diplomat since 1990, I have focused my career almost exclusively 
on Africa. As Ambassador to Mauritania since September 2014, I lead a 
highly productive inter-agency team engaged in advancing specific 
goals. We live up to our motto, ``One Mission, One Team.''
    Mr. Chairman and members of the committee, if confirmed, I will 
look to you for counsel and support as I seek to build on the 
achievements of my predecessors and their teams in advancing an 
American-Djiboutian partnership based on shared values and shared 
interests. I welcome any questions you may have. Thank you very much 
for your kind consideration of my nomination.


    Senator Flake. Thank you.
    Mr. Barlerin?

STATEMENT OF PETER HENRY BARLERIN, OF COLORADO, A CAREER MEMBER 
   OF THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                 STATES TO REPUBLIC OF CAMEROON

    Mr. Barlerin. Mr. Chairman, Ranking Member Booker, it is an 
honor to appear before you today as nominee to be the next U.S. 
Ambassador to the Republic of Cameroon. I thank President Trump 
and Secretary Tillerson for the trust they have placed in me by 
nominating me for this position.
    Thank you to my wife, Ines Rulis Barlerin, who is with me 
here today, as well as our sons, Sebastien and Maximilian, and 
our daughter, Ines Alexandra, who are here very much in spirit.
    I would also like to recognize my sister Joan and other 
family and friends present in this room and wish my mother and 
mother-in-law could be present here to have lived to see this 
day.
    It has been an honor to have had the opportunity to serve 
in an interim capacity as senior official in the Bureau of 
African Affairs for nearly half a year. The people of the 
Africa Bureau, including these two gentlemen, are an extremely 
hardworking, dedicated, and mutually supportive family. I 
cherish their confidence and friendship.
    Turning to Cameroon, the United States was one of the first 
to establish diplomatic relations with the country in 1960. 
Since 1962, nearly 4,000 Peace Corps volunteers have given 
their all there, and many I have talked to were all transformed 
by the experience.
    Cameroon is known as Africa in miniature because of its 
cultural diversity and because it has nearly all of the many, 
varied geographic features of the entire continent: active 
volcanoes, rainforest jungles teaming with wildlife, broad 
savannahs, and a beautiful coastline.
    Cameroon also faces a number of the same challenges as the 
rest of sub-Saharan Africa in terms of health, security, and 
governance. These challenges are somewhat holding back a 
country that is as full of potential as any other in Africa.
    On health, the President's Emergency Plan for AIDS Relief 
provides treatment, care, and prevention to Cameroonians 
affected by HIV/AIDS. And as a Global Health Security Agenda 
Phase I country, Cameroon partners with the United States to 
strengthen its ability to prevent, detect, and respond to 
infectious diseases with pandemic potential. Finally, at the UN 
General Assembly last month, USAID Administrator Mark Green 
announced Cameroon would be a new focus country of the 
President's Malaria Initiative.
    On security, the United States is proud to support Cameroon 
and its Lake Chad basin neighbors in their effort to defeat 
Boko Haram and its offshoot, ISIS-West Africa. If confirmed, I 
will work to emphasize that security forces stand a much 
greater chance of defeating the enemy when they respect human 
rights and when they build trust with civilians. I would also 
seek to engage Cameroon to implement the Tripartite Agreement 
with Nigeria and the UN High Commissioner for Refugees on the 
treatment of Nigerian refugees.
    My experience in Africa has taught me that good governance 
is the single most important factor in the success or failure 
of a nation and that the ends do not justify all means. If 
confirmed, I would encourage the government to release peaceful 
protesters detained in connection with the situation in the 
Anglophone regions and urge all parties to commit to dialogue. 
Violence on anybody's part is not the solution.
    In spite of the challenges, Cameroon has achieved 
considerable progress in the brief period since its 
independence. If confirmed, I would seek to help build on that 
progress and would work with the government, the people of 
Cameroon, and our international partners to ensure that 
elections in 2018 are free, fair, and credible, as well as 
peaceful.
    Mr. Chairman and members of the committee, thank you for 
this opportunity to appear before you. If confirmed, I look 
forward to working with the committee and others in Congress to 
advance U.S. interests in Cameroon. I would be happy to answer 
any questions.
    [Mr. Barlerin's prepared statement follows:]


               Prepared Statement by Peter Henry Barlerin

    Mr. Chairman, Ranking Member Booker, and members of the committee: 
It is an honor to appear before you today as nominee to be the next 
U.S.Ambassador to the Republic of Cameroon. I thank President Trump and 
Secretary Tillerson for the trust they have placed in me by nominating 
me for this position.
    Thank you to my wife Ines Rulis Barlerin, who is here with me 
today, as well as our sons Sebastien and Maximilian and our daughter 
Ines Alexandra, who are very much here in spirit. I would also like to 
recognize my sister Joan and other family and friends here today and 
wish my mother and mother-in-law could have lived to see this day.
    It has been an honor to have had the opportunity to serve in an 
interim capacity as senior official in the Bureau of African Affairs 
for nearly half a year. The people of the Africa Bureau are an 
extremely hard-working, dedicated, and mutually supportive family. I 
cherish their confidence and friendship.
    Turning to Cameroon, the United States was one of the first to 
establish diplomatic relations with the country in 1960. Since 1962, 
nearly 4,000 Peace Corps volunteers have given their all there, and the 
many I have talked to were transformed by the experience.
    Cameroon is known as Africa in miniature because of its cultural 
diversity and because it has nearly all of the many, varied geographic 
features of the entire continent--active volcanoes, rainforest jungles 
teeming with wildlife, broad savannahs, and a beautiful coastline.
    Cameroon also faces a number of the same challenges as the rest of 
sub-Saharan Africa, in terms of health, security, and governance. These 
challenges are somewhat holding back a country that is as full of 
potential as any other in Africa. If confirmed, I would do everything I 
can to help the government and the people of Cameroon to realize that 
potential.
    On health, the President's Emergency Plan for AIDS Relief provides 
treatment, care, and prevention to the many thousands of Cameroonians 
affected by HIV/AIDS. And as a Global Health Security Agenda Phase I 
country, Cameroon partners with the United States to strengthen its 
ability to prevent, detect, and respond to infectious diseases with 
pandemic potential. Finally, at the UN General Assembly last month, 
USAID Administrator Mark Green announced Cameroon would be a focus 
country of the U.S. President's Malaria Initiative.
    On security, the United States is proud to support Cameroon and its 
Lake Chad basin neighbors in their effort to defeat Boko Haram and its 
off-shoot, ISIS-West Africa. If confirmed, I will work to emphasize 
that their soldiers stand a much greater chance of defeating the enemy 
when they respect human rights, and when they have the trust of 
civilians. I would also seek to engage Cameroon to implement the 
Tripartite Agreement with Nigeria and the UN High Commissioner for 
Refugees on the treatment of Nigerian refugees.
    My experience in Africa has taught me that good governance is the 
single most important factor in the success or failure of a nation, and 
that the ends do not justify all means. If confirmed, I would encourage 
the government to release peaceful protesters detained in connection 
with the situation in the Anglophone regions, and urge all parties to 
commit to dialogue. Violence on anybody's part is not the solution.
    In spite of the challenges, Cameroon has achieved considerable 
progress in the brief period since its independence. If confirmed, I 
would seek to help build on that progress, and I would work with the 
government, the people of Cameroon, and our international partners to 
ensure that elections in 2018 are free, fair, and credible, as well as 
peaceful.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you. If confirmed, I look forward to 
working with the committee and others in Congress to advance U.S. 
interests in Cameroon. I would be happy to answer any questions.


    Senator Flake. Thank you.
    Mr. Whitaker?

STATEMENT OF ERIC P. WHITAKER, OF ILLINOIS, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
                STATES TO THE REPUBLIC OF NIGER

    Mr. Whitaker. Mr. Chairman, Ranking Member Booker, and 
distinguished members of the committee, I am honored to appear 
before you as President Trump's nominee for the United States 
Ambassador to the Republic of Niger. I deeply appreciate the 
confidence and trust the President and Secretary of State have 
shown in nominating me for this position. Thank you, members of 
the committee, for your consideration and for your ongoing 
attention to our relations with the nations of Africa. I look 
forward to working with Congress to advance our interests in 
Niger.
    I am supported here today by my brother Craig and regret 
that my late wife, Jonita, who was also a Foreign Service 
officer, is not here as well.
    Mr. Chairman, a former Peace Corps volunteer, I have served 
in 10 or our diplomatic posts in Africa, including Niamey, 
Niger, where I was Deputy Chief of Mission from 2008 to 2010. I 
also was fortunate to have the opportunity to serve as Deputy 
Chief of Mission in N'Djamena, Chad, to the east of Niger, and 
as Political Economic Chief in *Bamako, Mali to the West.
    During my career, I have served throughout several major 
challenges in Africa, including conflicts and military coups, 
refugee crises, droughts and floods, while also witnessing at 
the same time noteworthy economic growth and an expansion of 
democracy. If confirmed, I will draw upon my experience to 
expand the strong partnership between Niger and the United 
States of America as we continue to work together toward our 
mutual goals of combating extremism throughout the region, 
strengthening democratic governance and respect for fundamental 
freedoms, and fostering inclusive economic growth and 
prosperity.
    As a result of Niger's progress in developing democratic 
institutions, it was approved in 2016 for a $437 million 
Millennium Challenge Corporation compact, as you mentioned. 
This focuses on improving water management, agricultural 
productivity, and market access to improve incomes for small-
scale farmers and pastoralists.
    Despite these achievements, however, Niger still faces 
great challenges. We are committed to supporting Niger's 
efforts to protect its borders, build capacity to interdict 
illicit goods, promote good governance and rule of law, and 
help return security and stability to northern Mali.
    Niger also continues to face serious humanitarian 
challenges, ongoing migration issues, and persistent food 
insecurity.
    Despite its own serious humanitarian situation, however, 
Niger has generously opened its door to over 57,000 Malian and 
106,000 Nigerian refugees. From fiscal year 2013 to date, the 
United States has provided over $225 million in emergency 
assistance to address food insecurity and to address the needs 
of Malian and Nigerian refugees hosted by Niger.
    The United States and Niger partner across a variety of 
programs to address the needs of Niger's most vulnerable 
people. This year USAID Administrator Green announced Niger as 
a new target country for the Global Food Security Strategy, and 
Niger also became a President's Malaria Initiative country.
    In fiscal year 2017, the United States is providing $61.5 
million in bilateral development assistance to Niger for 
programs supporting democracy, governance, health, education, 
nutrition, and agriculture. If confirmed, I will continue to 
encourage the Nigerien Government to implement economic reforms 
and develop the infrastructure needed to attract investment and 
promote trade, particularly with the United States.
    Overall, I will work to ensure that our bilateral 
partnership remains firmly rooted in our shared vision of 
security and prosperity. I will endeavor to assist in 
partnering for a democratic and prosperous Niger that respects 
human rights and provides economic opportunities for all.
    Through this partnership, I look forward to fulfilling my 
priorities of protecting American citizens and advancing U.S. 
national security interests in the Sahel.
    Thank you for inviting me to appear before you today. I 
would be most pleased to answer questions that you may have.
    [Mr. Whitaker's prepared statement follows:]


                 Prepared Statement of Eric P. Whitaker

    Mr. Chairman, Ranking Member Flake, and distinguished members of 
the committee, I am honored to appear before you as President Trump's 
nominee for United States Ambassador to the Republic of Niger. I deeply 
appreciate the confidence and trust the President and Secretary of 
State have shown in nominating me for this position. Thank you, members 
of the committee for your consideration, and for your ongoing attention 
to our relations with the nations of Africa. Specifically, I look 
forward to working with Congress to advance our interests in Niger.
    Following service as a Peace Corps Volunteer in the Philippines, 
and thereafter in municipal management in city government in 
California, I began my Foreign Service career as a Vice Consul in 
Seoul, South Korea, twenty-seven years ago. I have since had the great 
fortune to serve in four regions of the world, including as a Leader of 
a Provincial Reconstruction Team in red-zone Baghdad, as a Foreign 
Policy Advisor to Combined Joint Task Force--Horn of Africa in 
Djibouti, and as a Refugee Coordinator in wartime Croatia. I have 
served in ten of our diplomatic posts in Africa, including Niamey, 
Niger, where I was Deputy Chief of Mission and Charge d'Affaires from 
2008 to 2010. I have also served as Deputy Chief of Mission in 
N'Djamena, Chad, to the east of Niger. My most recent assignments have 
been as Acting Deputy Assistant Secretary for African Affairs, and as 
Director of East African Affairs in the Department of State's Africa 
Bureau.
    During my career, I have served throughout several major challenges 
in Africa, including conflict and military coups, refugee crises, 
drought and famine, and floods. More importantly, I have also witnessed 
noteworthy growth in democracies and economies driven by human capital. 
If confirmed, I will draw upon my experience to expand the strong 
partnership between Niger and the United States of America as we 
continue to work together towards our mutual goals of combating 
extremism throughout the region, strengthening democratic governance 
and respect for fundamental freedoms, and fostering inclusive economic 
growth and prosperity.
    Despite being one of the poorest countries in the world and its 
having some restrictions in freedom of expression, Niger has made 
significant progress in developing democratic institutions and 
combating corruption. In 2016, as a result of this progress, Niger was 
approved for its first Millennium Challenge Corporation Compact. MCC 
and the Government of Niger signed a $437 million compact focusing on 
improving water management and productivity, and strengthening market 
access, with the objective of improving the income and livelihoods of 
small-scale farmers and pastoralists, who make up the majority of the 
Nigerien population. If confirmed, I will work closely with the 
Nigerien government and civil society to continue this momentum for 
reform by promoting responsive democratic institutions, reliable 
government services, and the development of critical infrastructure.
    Despite these achievements, Niger still faces great challenges. The 
collapse of security in southern Libya and conflict in Mali and 
northeast Nigeria have placed Niger at a dangerous crossroads, as 
extremist groups and international criminal networks exploit porous 
borders and long-used smuggling routes to move people, weapons, and 
other contraband across the Sahel. Niger has also been a victim of 
terrorism from its border along the Lake Chad basin, where roughly 40 
women and children were abducted in July by Boko Haram.
    The United States and Niger share the common goal of countering 
terrorism and denying violent extremism an environment in which to take 
root. We are committed to supporting Niger's efforts to protect its 
borders, build capacity to interdict illicit goods, promote good 
governance and rule of law, and help return security and stability to 
northern Mali.
    Niger has invested its limited resources in combating the scourge 
of extremism, and has been a leader in the international response to 
al-Qaeda in the Islamic Maghreb (AQIM), both by providing critical 
support for the peaceful political process and committing a battalion 
of ground troops to the African-led International Support Mission to 
Mali (AFISMA) and to the follow-on U.N. Multidimensional Stabilization 
Mission in Mali (MINUSMA). The United States has supported these troops 
by providing training, equipment, and logistical support.
    Niger is also a strong partner in our Trans-Sahara Counterterrorism 
Partnership (TSCTP), through which we are working together to increase 
security sector capacity, address underlying causes of radicalization, 
and amplify the voices of moderate leaders to positively influence 
populations potentially vulnerable to radicalization. For tactical and 
institutional capacity building, we are working to improve crisis 
response capabilities (SWAT) for Nigerien law enforcement. Current 
initiatives also work to build community resilience in the most 
vulnerable regions by working with local security actors to develop and 
exercise crisis response plans. In response to the growing threat by 
Boko Haram in 2015, the United States provided significant assistance, 
including armored personnel vehicles and logistical support. We also 
train and support our Ministry of Justice counterparts as they work to 
bring terrorism suspects to trial.
    If confirmed, I will seek to advance our already-strong security 
cooperation to further our shared goal of countering terrorism in the 
region and addressing the underlying drivers that fuel insecurity.
    On top of great security threats, Niger also continues to face 
serious humanitarian challenges, irregular migration issues, and 
persistent food insecurity. As threats spill over from neighboring Mali 
and Nigeria, markets have been disrupted and significant numbers of 
people have been displaced, sometimes hurting Nigerien livelihoods. 
Boko Haram and ISIS-West Africa continue to have a significant impact 
on the Lake Chad Basin, exacerbating the humanitarian crisis in all 
four countries, including Niger. Yet, despite its own serious 
humanitarian situation, Niger has generously opened its doors to over 
57,000 Malian refugees and 106,000 Nigerian refugees. Economic and 
vulnerable migrants from West and Central Africa continue to use Niger 
as a transit country to Europe via Libya, in an effort to reach Europe. 
Furthermore, from Fiscal Year 2013 to date, the United States has 
provided over $225 million in emergency assistance to address food 
insecurity and the needs of Malian and Nigerian refugees.
    Recurrent shocks, including drought, flooding, and food price 
increases, have exacerbated deep poverty and recently resulted in food 
insecurity for over 1.8 million people. The United States and Niger 
partner across a variety of programs to address the needs of Niger's 
most vulnerable people. This year, USAID Administrator Green announced 
Niger as one of the 12 new target countries for the Global Food 
Security Strategy.
    We also coordinate with the Nigerien government to support its 
innovative programs to address food security, including the "3N 
Initiative" (Nigeriens Nourishing Nigeriens) that empowers local 
communities to work together to improve agricultural productivity. 
Thanks to this initiative, Niger has made significant progress in its 
fight against land degradation and reduced the proportion of people 
suffering from hunger by 50 per cent since 2011. For its inclusive 
design as well as its significant achievements, the 3N Initiative was 
recently recognized with the 2017 Future Policy Bronze Award, awarded 
by the World Future Council in partnership with the U.N. Convention to 
Combat Desertification. If confirmed, I look forward to supporting 
these efforts, leveraging these investments to promote U.S. interests, 
and exploring new areas of cooperation.
    In addition to addressing food insecurity, Niger must improve 
health indicators that place Niger at the bottom of most measures for 
wellbeing. It must generate sustainable economic growth to tackle high 
poverty rates. Rapid demographic growth driven by the highest fertility 
rate in the world threatens to overwhelm the government's ambitious 
plans for development. To address health indicators, USAID has selected 
Niger to be a Presidential Malaria Initiative country, with the aim to 
substantially reduce malaria's impact as the leading cause for death 
for children under the age of 5. In Fiscal Year 2017, the U.S. is 
providing $61.5 million in bilateral development- focused assistance to 
Niger for programs supporting democracy, governance, health and 
nutrition, and agriculture.
    To expand economic opportunity, Niger will need to diversify the 
economy, invest in infrastructure, and improve education. If confirmed, 
I will continue to encourage the Nigerien government to implement the 
economic reforms needed to attract investment and promote trade. I will 
also seek to build new relationships between Nigerien and American 
companies to create opportunities for trade that benefit both our 
countries.
    If confirmed, I will work to ensure that our bilateral relationship 
remains firmly rooted in our shared vision of security and prosperity. 
I will endeavor to assist in partnering for a democratic and prosperous 
Niger that respects human rights and provides economic opportunities 
for all. Through this partnership, I look forward to fulfilling my 
priorities of protecting American citizens and interests, advancing 
U.S. national security interests in the Sahel, and expanding mutual 
understanding between our citizens.
    Thank you for inviting me to appear before you today. I would be 
pleased to answer any questions you may have.


    Senator Flake. Thank you, all of you. Again, thank you to 
your family for being here as well.
    Mr. Andre, with regard to Djibouti, this is the first 
country where the United States and China both have military 
bases. What kind of challenges does that present? And how will 
that go?
    Ambassador Andre.  Thank you for the question, Senator.
    I note that General Waldhauser, the Commander of AFRICOM, 
recently pointed out that China's presence presents both 
opportunities and challenges. The challenge I will mention 
first, which is to safeguard with the Djiboutian authorities 
our basic rights, which have always operated in a manner that 
gives us full flexibility and maximum effectiveness. From all I 
have heard in my briefings, from all I have seen, the 
Djiboutian Government is motivated for its own purposes to see 
that that maximum effectiveness for Camp Lemonnier remains in 
place. So, of course, we will be on high alert to see if there 
is any attempt to curtail our base rights, but everything I 
have seen indicates that the Djiboutians would not want to go 
there.
    Now, General Waldhauser also mentioned opportunity. We do 
have shared interests, for example, in anti-piracy. Anti-piracy 
explains the presence of some of the other militaries there. 
About 10 percent of world trade, 8 percent of petroleum 
products move through the Bab-el-Mandeb Strait, 18 miles long. 
It is a two-lane highway. So it really forces the traffic 
through a narrow point, and that is exactly where Djibouti is 
found with Yemen on the other side. And where we have shared 
interests, that is opportunity. Where not, we are on very much 
high alert.
    Senator Flake. Thank you.
    With regard to Cameroon, Mr. Barlerin, U.S. forces have 
trained with Cameroon security forces. There have been some 
alleged abuses in the security forces there. How are we dealing 
with that?
    Mr. Barlerin. Thank you, Senator.
    I have read the Amnesty International report carefully. And 
the embassy has interacted with the government at the highest 
levels to express concerns about alleged human rights 
violations. In the report, it also mentions that there was some 
awareness on the part of our forces far north of Cameroon. The 
commander of the Special Operations Command forward conducted 
an initial investigation into those allegations, did not find 
anything. General Waldhauser, the Commander of AFRICOM, has 
initiated a follow-on investigation led by a general officer, 
and that investigation is underway. Thus far, we have seen no 
evidence that any of our troops were aware of any violations of 
the Law of Armed Conflict.
    As you know, we are prohibited from training or working 
with any units that have been found to be guilty of--or 
suspected of committing gross violations of human rights, sir.
    Senator Flake. How important is our relationship with 
Cameroon with regard to the fight against Boko Haram?
    Mr. Barlerin. I would say it is extremely important. 
Cameroon pays a heavy price. They have approximately 2,000 
troops with the multinational joint task force, with other Lake 
Chad Basin countries, and they have another 2,000 troops with 
this rapid intervention battalion in the far north fighting. 
And we do training and equipping. We build the capacity of the 
Cameroonian security forces, not just the military but also the 
police and the judiciary. And we have a full range of support 
for their effort to fight Boko Haram and ISIS-West Africa.
    Senator Flake. Thank you.
    Mr. Whitaker, you mentioned--obviously, there is a lot of 
security cooperation that we have in Niger, building a base 
there. You mentioned in your testimony the opportunity for more 
commercial engagement or trade. In what sectors is that 
possible?
    Mr. Whitaker. Regrettably, Mr. Chairman, the level of trade 
and investment with Niger is coming from quite a low base.
    Senator Flake. So anything is an improvement.
    Mr. Whitaker. Anything is an improvement and golden. And we 
look forward to working with representatives of the few 
American firms that do have agents and distributors present. 
That would include hosting them perhaps for quarterly business 
receptions to try to help them to do better business and to 
help them to work with Nigerien counterparts to improve the 
climate for trade. There may also be spin-offs with the MCC 
compact. There might be opportunities for U.S. firms to bid on 
infrastructure projects or American NGOs to bid on some of the 
community-level projects associated with that. So I look 
forward to working with them and doing consultations with the 
Department of Commerce, the Corporate Center for Africa, and 
others to try to improve the number of opportunities that we 
have in Niger.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. With your permission, I would like to defer 
my time for now to Senator Coons.
    Senator Flake. Senator Coons?
    Senator Coons. Thank you, Chairman Flake. Thank you, 
Ranking Member Booker. I appreciate your accommodating my 
schedule.
    Mr. Whitaker, good to see you again. Good to be with you, 
Mr. Barlerin and Mr. Andre. Thank you for your willingness to 
serve in three different countries on a continent where I think 
the U.S.-Africa relationship is critical and where developments 
in terms of the balance between security and economic 
partnership and cooperation, human rights, and the promotion of 
democracy is more important really than it has ever been.
    Our ongoing humanitarian assistance in countries from South 
Sudan to Nigeria to Somalia continues to save lives, and our 
aid and support of democracy has helped ensure relatively 
peaceful democratic transfers of power in countries like Ghana 
and The Gambia.
    Initiatives like Power Africa, the Young African Leaders 
Initiative, Feed the Future, PEPFAR, AGOA, all increase ties 
between the United States and Africans while promoting trade 
and investment, and are all examples of why the U.S.-Africa 
relationship has been and must continue to be bipartisan. These 
are initiatives across Republican and Democratic 
administrations, and we have been blessed by the engagement of 
Republican and Democrat leaders here in the Senate.
    So let me ask just a few quick questions, if I might, in 
particular about the violence in Cameroon and news reports 
today that something on the order of 17 protesters have been 
killed.
    As the co-chair of the Senate Human Rights Caucus, I am 
deeply concerned about the government's crackdown on human 
rights and civil liberties, especially in the Anglophone 
portions of Cameroon. Some of the reports from yesterday also 
report that there are dozens more peaceful protesters who have 
been arrested. I know you referenced this in your opening 
remarks.
    Do you intend to continue the longstanding U.S. policy of 
supporting the rule of law, supporting self-expression and free 
speech? And how will you use your role, if confirmed, to 
strengthen the U.S.-Cameroon relationship while also speaking 
for our core values?
    Mr. Barlerin. Thank you, Senator.
    Yes, I will uphold our current policy of strengthening rule 
of law in Cameroon. As you know, the Anglophone regions--the 
situation started back in October or November of last year when 
lawyers and teachers protesting what they perceived to be 
unfair treatment on the part of the Francophone majority and 
the government in Yaounde staged stay-at-home strikes. And the 
government responded with force and shut down the Internet and 
arrested a number of leaders, as well as peaceful protesters. 
Partly in response to efforts from the international community, 
including the United States, the UN and civil society 
organizations, they restored the Internet after 93 days of it 
being closed down.
    These demonstrations on Reunification Day that took place 
on Sunday--we deplore the loss of life. And we have expressed 
to the government that disproportionate use of force in these 
kinds of situations is not acceptable. And if confirmed, 
Senator, I promise you that I will carry that message forward.
    We have, at the same time, called on all sides to come to 
dialogue, to engage in a credible dialogue because these are 
longstanding issues, Senator, and they cannot be resolved 
overnight and certainly they cannot be resolved with violence.
    Senator Coons. Thank you.
    In all three of the countries to which you have been 
nominated to serve as Ambassadors, there is a delicate balance 
between complex security situations, supporting and partnering 
effectively with regimes that have at times been our important 
partners in counterterrorism work or in regional stability 
while also advocating for openness for democracy, for human 
rights. The practice of the regime in Cameroon of shutting off 
the Internet when things are said that they do not like is the 
sort of thing we cannot tolerate. But by the same token, in the 
fight against Boko Haram or in the fight against regional 
sources of instability, whether in the Horn or in the Sahel, we 
need to sustain our partnerships.
    If I could just ask briefly of all three of you, how will 
you balance the need to promote America's national security 
interests with America's core values of democracy, human 
rights, rule of law? If you might, Mr. Whitaker.
    Mr. Whitaker. Thank you, Senator.
    If confirmed, I look forward to working with my country 
team to address the equilibrium of which you speak. I am 
delighted that Niger has qualified for an MCC compact. That 
itself says it has met a number of criteria on the so-called 
scorecard. It also tells us that they have passed the bar on 
corruption, which is a necessary precondition to that. I look 
forward to this as helping with governance and the agricultural 
sector where 83 percent of the country works. I think policy 
reforms that spin off that will be helpful.
    I am also delighted that the USAID program is wrapping up 
and that Congress has supported additional funding, $61.5 
million this fiscal year just ending. It is an increase from 
before, of which $5 million is for democracy and governance 
programming alone from $2 million the year before, $1 million 
the year before that. So we are in a good position in terms of 
an increase in resources. We will, of course, need to ensure 
that they are being used with accountability.
    But I look forward to working with our team to ensure that 
these things help improve health, education, the role of civil 
society in a democracy, respect for human rights. I am also 
pleased that we have a Department of Justice resident legal 
advisor working with law enforcement and the judiciary, as well 
as a regional security office that works with law enforcement 
training that includes respect for human rights.
    Furthermore, we have an active public diplomacy program 
that amplifies our message both private and public. So I look 
forward to helping to ensure that that balance is there, and I 
do take that very seriously. Thank you, Senator.
    Senator Coons. Thank you, Mr. Whitaker.
    I am well beyond my time, so I will leave it to the 
discretion of the chair whether to invite the other two 
nominees to finish or to move on.
    Senator Flake. Finish, briefly I am sure. [Laughter.]
    Mr. Barlerin. I will be brief. I would say that I have 
always stressed in my career to African government counterparts 
that in the long run, the ends and the means have to converge 
and that in the long run, protecting human rights and the 
fundamental freedoms of association and expression are the best 
way to ensure the stability of the country. And I will continue 
to do that in Cameroon.
    As you know, Senator, Cameroon is going to be facing 
elections in the fall of next year, and so I plan, if 
confirmed, to put together a good program with the Bureau of 
Democracy Rights and Labor, our Bureau of Conflict and 
Stabilization Operations, Africa Bureau, and the embassy team 
to support elections that are free, fair, and credible and 
peaceful.
    Senator Coons. You will have a busy year. [Laughter.]
    Ambassador Andre.  Senator, that is a question that I have 
considered a lot in my career. What I saw in wartime Sierra 
Leone was how a total lack of security led to outrageous human 
rights violations. What I saw in Kenya during the December 2007 
election and the violent aftermath was a democratic deficit 
leading to widespread violence and undermining security. So 
human rights and security are complementary. They are both 
required.
    What I have done in Mauritania for the last 3 years is, 
when necessary, speaking out publicly and at other times making 
specific points privately, but as a friend, as the U.S. is a 
friend of that country, explaining how we see the necessity of 
maintaining both security and progress on human rights.
    Djibouti will have legislative elections in 2018. That will 
be an opportunity to make progress in establishing democratic 
institutions. The American people through USAID are funding a 
$3 million program to develop civil society. Djibouti has an 
exceptionally weak civil society, and that is a necessary 
component of a robust democratic establishment.
    In the end, all of the security and economic gains that 
Djibouti has achieved can only be guaranteed over the long run 
by democratic institutions. And that is the message that I will 
be making to the Djiboutians.
    Senator Coons. Thank you.
    Thank you, Mr. Chairman, and thank you, Senator.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. You give an inch to Coons and he takes 4 
extra minutes. [Laughter.]
    Senator Flake. I was going to warn you when you gave that, 
you will never get it back.
    Senator Booker. No. I really am grateful for not only the 
chairman of this committee, but Senator Coons has been a friend 
who was the ranking member before me on this committee and has 
done an extraordinary job and continues to do in his 
leadership.
    I failed to say in my introductory remarks, Mr. Whitaker, 
that I am sorry we did not get a chance to meet and discuss 
this in person, but I understand that your wife, who was also a 
State Department Foreign Service officer, passed away in the 
field while you were here in D.C. And I just want to express 
not only my condolences but my deep appreciation, reverence, 
and honor that this country should extend to your wife. And I 
am sure my colleagues join me in that sentiment. Thank you very 
much.
    So Senator Coons really hit on a tension that I have been 
struggling with which, Ambassador Andre, you spoke to, which is 
the tension between human rights and humanitarian concerns, 
democratic principles and ideals, and our security concerns. 
And really since 9/11, 2 decades, we have been ramping up our 
spending on security concerns in the nations that you all 
represent. And my concern is that the democratic stability of 
these countries has not improved. One would argue in many cases 
democracy continues to erode or is on a precipice, as we see in 
Cameroon, for example, of potential disastrous concerns. 
Senator Coons has been yanking my ear over the last 24 hours or 
so about the challenges in Cameroon alone. And that is sort of 
what I worry about is that we are, as the State Department's 
posture now, especially with the administration's budget 
request, investing less in building civil society, investing 
less in the kind of State Department activities that provide 
security.
    There was a new UNDP study based on interviews with more 
than 500 recruits of violent extremism that found that over 70 
percent of the cases of government action, including the 
killing or arrests of a family member or friend, was the 
tipping point that prompted them to an extremist organization. 
I have listened to some of my more senior colleagues in open 
committee discuss what we are seeing in Yemen right now and our 
participation in many ways with the Saudis in what has been--I 
should not say our participation--what the Saudis are doing in 
indiscriminate bombing in many ways and creating a more 
unstable environment for future acts of terrorism or future 
recruits for terrorist organizations. And so I really do worry 
about the abuses right now that some of the security forces are 
engaging in against civilians and how they can be a powerful 
recruitment tool for terrorist organizations, which is an 
important consideration as the executive branch thinks about 
continuing security assistance for countries like Cameroon 
whose military has been implicated in torture.
    And so I want to ask--maybe, Mr. Barlerin, we will begin 
with you--in your position what can we be doing to ensure that 
U.S. security assistance does not enable much of this 
reprehensible abusive behavior by partner militaries who are in 
many ways fueling the long-term instability of their country, 
as well as the problems that we are trying to prevent. And what 
I am worried about is how the U.S. seems to be in some cases, 
as we have seen in Cameroon--you mentioned that you read the 
Amnesty International report. In some ways, it is casting a 
shadow over the American presence in Cameroon as well.
    Mr. Barlerin. Thank you, Senator.
    I cannot give you a perfect answer and I will not purport 
to try. But what I will promise you is that I will carry 
forward the same spirit, the same concerns, the same message 
that you have, if confirmed, and try my best to impress upon 
Cameroonian interlocutors the importance of respect for human 
rights and basic freedoms, fundamental freedoms.
    I will say that the Leahy amendment is like a vaccine for 
us because it prevents us from being mixed up with military 
units that are engaged with gross violations of human rights. 
So that has been, I think, a very helpful thing for us. And 
AFRICOM's investigations into the allegations of Amnesty 
International, I hope and I am confident, will clear any idea 
that the U.S. is somehow involved with something that is not 
correct.
    I would also like to just note that we are doing a lot more 
in the far north of Cameroon. Cameroon is host to a huge number 
of refugees, about 225,000 from the Central African Republic, 
about 93,000 from Nigeria. For a population that size of a 
fairly small economy, that is the equivalent of having about 8-
plus million refugees in the United States of America in an 
economy that is facing serious challenges, as you mentioned.
    The USAID's Office of Transition Initiatives is working in 
the far north to build local capacity of opinion-makers, of 
expressing moderate messaging, of helping youth to resolve 
their differences in a peaceable manner. And then we provide a 
great deal of assistance. We are the leading assistance country 
for humanitarian assistance in that area to help the people of 
the far north of Cameroon get through this difficult time. So 
the Bureau of Population, Refugees and Migration provides a 
little over $13 million this year. USAID's Food for Peace 
provides about $18 million to $20 million of feeding. And then 
USAID's Office of Foreign Disaster Assistance provides 
psychosocial support and other support for these communities.
    But let me stress that Cameroon has been and I hope will 
continue to be a good and a strong partner with us in facing 
these very serious challenges.
    Senator Booker. Thank you very much. And again, the 
dialogue between us is so important, especially as we set the 
budget for the State Department. And some of these 
organizations that you rightfully mentioned and gave highlight 
to--their resource needs is something that is important to help 
form our understanding of where we should be making 
investments.
    I am very conscious of another panel but, Mr. Whitaker, I 
do want to just press you a little bit, and then I will end and 
let Ambassador Andre escape my questioning. [Laughter.]
    Senator Booker. Sorry, Mr. Whitaker. Your brother is 
filming this. I want to give you a chance to--[Laughter.]
    Senator Booker.--really look good on camera.
    But Niger has got a really tough neighborhood, obviously, 
when it comes to Boko Haram, Al Qaeda, and then unrest in Mali 
and Libya. And so the intelligence and reconnaissance 
capabilities in the region are really--it is such an important 
mission.
    But there was a CNN article that described Agadez as 
becoming a tinderbox packed with migrants willing to risk 
everything, those who have spent all they had and failed to 
make it to Europe, and an unemployed local population that is 
rapidly running out of patience. And so AFRICOM seems to 
recognize this. An official was noting--and I quote that 
official saying the stability is absolutely fragile. There is a 
youth bulge we have here, the median age being less than 15 for 
more than half the population, literacy estimated to be at 15 
percent, and the humanitarian conditions very poor is going to 
affect how we conduct business.
    And so this is why I am concerned again about us expending 
over $100 million in our military base there. U.S. foreign 
assistance, however, towards health, agriculture, good 
governance, and other programs totaled less than $37 million in 
fiscal year 2016. And the fiscal year 2018 request from the 
administration was $1.6 million, given all that was going on.
    And so I am just curious for you entering again this 
extraordinary challenge and the extraordinary strategic 
importance of what is going on there--not only is it 
counterterrorism but preventing real humanitarian crises of the 
future. Are you concerned about the over-investment in the 
military or maybe it is not an over-investment in the military 
but not enough of an investment when it comes to things to 
stabilize the community, to empower locals to not only have the 
basic needs but also to help to stabilize democratic ideals? I 
am just wondering if you could give me any thoughts, as someone 
who has to make these policy decisions in cooperation with my 
colleagues about our investments or at least the mismatch that 
I seem to see about our investments in an important nation.
    Mr. Whitaker. Thank you, Senator. I take your question very 
seriously in particular because I have served in Niamey before 
and in neighboring Mali and Chad. And they all face the scourge 
of terrorism.
    We are trying to help Niger as a partner by training and 
equipping their military, helping to build an airfield near 
Agadez so they can conduct surveillance over their borders and 
protect from gun runners, movement of foreign fighters from 
country to country, and other smuggling. And this is important 
to their own security, but it is also important that the 
region, through a variety of initiatives, attack regional 
issues jointly. We are trying to help develop that capacity. 
This also includes our training of Nigerien military for the 
MINUSMA next door in Mali where they have a battalion and we 
train a battalion each year. So they are well prepared to carry 
out the responsibilities.
    I understand the importance of balance. That is why I am 
excited about the Millennium Challenge Corporation compact 
which will help with agricultural productivity because that is 
where people work is in the agricultural sector. Work in that 
area I think will help fight terrorism and any lure that 
violent extremism might have.
    The AID programs are going up. We are seeing an increase in 
funding, including in health and education, and I think these 
will support governance and give people hope for tomorrow.
    So I see we are doing a number of things. It may not be 
enough. I am certainly open to suggestions, which I will take 
in my consultations. I will be consulting with AFRICOM as well 
and getting a better handle on their programs and trying to 
ensure we have some greater balance in our relationship. So I 
look forward to working with my country team, if confirmed, to 
ensure that this takes place.
    I do share your concerns, sir.
    Senator Booker. All right.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Booker and Senator Coons, it is nice to have people 
so knowledgeable on the subject. We have worked on this issue 
for a while. I was with Senator Coons and traveled with him. I 
am glad that he spent some time here, as well as the interests 
that Senator Booker shows and the experience that he has.
    So with the thanks of the committee, I appreciate you 
testifying, and we will now call the second panel up and we 
will start in about 2 minutes, if that is okay. [Pause.]
    Senator Flake. That was fast. Thank you so much. We will 
now start with the second panel.
    The first nominee, Michael Dodman, who most recently was 
Executive Assistant to the Under Secretary for Economic Growth, 
Energy and the Environment. He served as counsel general in 
Karachi, as well as he was the economic officer to the European 
Union in Baghdad as well.
    Our second nominee, Nina Fite, most recently was Principal 
Officer in the U.S. consulate in Montreal. She also has served 
as Principal Officer in our consulate in Pakistan and served a 
previous tour in Angola, among other assignments.
    Our third nominee, Daniel Foote, most recently was Deputy 
Assistant Secretary for the Bureau of International Narcotics 
and Law Enforcement Affairs at State. He has been deputy chief 
of mission in both Santo Domingo and Port au Prince.
    Our fourth nominee, David Reimer, who most recently was 
Director for West African Affairs, also has been Director for 
East African Affairs and deputy chief of mission as well.
    So thank you so much. And with that, we will recognize Mr. 
Dodman.

STATEMENT OF MICHAEL JAMES DODMAN, OF NEW YORK, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
    STATES OF AMERICA TO THE ISLAMIC REPUBLIC OF MAURITANIA

    Mr. Dodman. Thank you very much, Mr. Chairman, Ranking 
Member. I am honored to come before you as President Trump's 
nominee to be the next U.S. Ambassador to the Islamic Republic 
of Mauritania. I am grateful to the President and Secretary 
Tillerson for their confidence.
    I am thrilled to be joined today by my wife Joan. Joan and 
I first met as freshman at Georgetown, and she has been an 
inspiration and support to me ever since then.
    One of our four children----
    Senator Booker. Family members have to raise their hand. We 
got to know who you are talking about here. [Laughter.]
    Mr. Dodman [continuing]. Thank you. And since Senator 
Booker has jumped in, I will also say she is a proud daughter 
of New Jersey.
    Senator Booker. You did not tell me. I recognize a Jersey 
girl. [Laughter.]
    Mr. Dodman. Thank you.
    Our daughter Claire, the youngest of our four kids, is also 
here. Our other three children and my parents are here in 
spirit. But I can just say for all of us, for the six of us, 
the 30 years that we have spent in the Foreign Service as a 
family has been the greatest thrill and honor for all of us to 
represent our country abroad.
    Mr. Chairman, Mauritania is a strong U.S. partner located 
at the crossroads of the Maghreb and the Sahel. The country's 
success and stability are important to the United States, and 
that is why we so emphatically support Mauritanians' efforts to 
strengthen their democratic institutions, to end slavery and 
its vestiges, and to build a secure, united, and prosperous 
society.
    Like its neighbors, Mauritania faces security threats from 
Al Qaeda and similar extremist groups. Thankfully, Mauritania 
has not experienced a terror attack on its soil since 2011. The 
country's leadership often cites U.S. training and assistance 
as a prime factor for this achievement.
    Today, Mauritania's contributions to regional security 
include their hosting in Nouakchott the secretariat of the G5 
Sahel organization. If confirmed, I look forward to 
strengthening our security cooperation with Mauritania and also 
with the G5 Sahel.
    Mauritania is preparing for presidential elections in 2019. 
Many Mauritanians hope to distance their nation from a history 
of autocratic governance. Impartial, transparent, and 
accountable governance is the best means to strengthen 
Mauritania's national unity and to promote a prosperous future.
    Mauritania has struggled to achieve a national identity 
that reflects its ethnic and racial diversity. If confirmed, I 
will support Mauritanians in this important effort, including 
pressing for the full implementation of laws and policies that 
guarantee freedom from slavery for all Mauritanians and that 
hold anyone accountable who infringes on the rights of others.
    Like many of my colleagues before you here today, the 
primary focus of my career has been economic diplomacy, and 
this is an area where I see significant opportunities in 
Mauritania. Bilateral commercial relations are growing, 
including with an American firm's discovery of significant 
offshore gas deposits. I am glad that we also have a new 
American business forum recently established in Nouakchott. So 
if confirmed, I look forward to being very active in this area.
    My recent tours have included some of our toughest Foreign 
Service posts, in particular my last assignment overseas 
running our consulate in Karachi. I can assure you, Mr. 
Chairman, that I take very seriously a chief of mission's 
responsibility to ensure the safety and security of all 
employees and of all resident Americans.
    Mr. Chairman, I am thrilled to be participating in this 
hearing today with friends and colleagues who represent the 
very best of the Foreign Service. I am especially grateful to 
Ambassador Larry Andre, whose seat I appear to have taken, for 
his support and guidance throughout this process. If confirmed, 
I look forward to building on the many achievements of 
Ambassador Andre and the strong team at Embassy Nouakchott to 
further advance an American-Mauritanian partnership based on 
shared values and shared interests.
    Thank you very much for your consideration. I look forward 
to any questions you may have.
    [Mr. Dodman's prepared statement follows:]


                Prepared Statement of Michael J. Dodman

    Mr. Chairman, Ranking Member Booker, and distinguished members of 
the committee, I am honored to come before you as President Trump's 
nominee to be the next United States Ambassador to the Islamic Republic 
of Mauritania. I am grateful to the President and Secretary Tillerson 
for their confidence in me.
    I am joined here today by my wife Joan and our daughter Claire. For 
us, the Foreign Service has been very much of a family venture, and all 
of us are looking forward to the challenges and opportunities that this 
nomination presents.
    Mauritania is a strong U.S. partner in Africa, strategically 
located at the crossroads of the Maghreb and the Sahel. Mauritania's 
success and long-term stability are important to the United States. 
That is why we emphatically support the Mauritanian Government, 
political parties, and civil society in their efforts to strengthen the 
country's democratic institutions, end slavery and its vestiges, and 
build a secure, united, prosperous, and free society.
    Mauritania suffered vicious terrorist attacks from al-Qaida in the 
Islamic Maghreb starting in 2005. While the region continues to face 
serious threats from al-Qaida and similar groups, Mauritania has not 
experienced a terrorist attack on its soil since 2011. Mauritania's 
civilian and military leaders often cite our security partnership as a 
prime factor in this success, recognizing that U.S. training and 
assistance have boosted the capacity of Mauritanian security forces.
    Mauritania is contributing to efforts to confront regional security 
threats, including by hosting, in Nouakchott, the secretariat of the G5 
Sahel regional organization that brings together Mauritania, Mali, 
Burkina Faso, Niger, and Chad to address trans-border threats. If 
confirmed, I look forward to seeking ways to further strengthen our 
security cooperation with Mauritania, and through them with the broader 
region.
    Mauritania supports its neighbor, Mali, as that country also 
confronts violent extremism. Mauritania is supporting regional 
stability further by deploying peacekeepers to the U.N. Mission in the 
Central African Republic, to whom the United States provides training 
support. Mauritania hosts around 52,000 refugees from Mali. The United 
States has provided $48 million in humanitarian assistance to 
Mauritania over the last five years to address food and emergency needs 
of Malian refugees.
    Mauritania is preparing for its next presidential election in 2019. 
Many Mauritanians seek to distance their nation from a history of 
autocratic governance, and the surest path to this is a commitment to 
democracy, in the hands of a well-informed public who enjoy equal 
rights and equal recourse to the law. Impartial, transparent, and 
accountable governance is the best means to strengthen Mauritania's 
national unity to promote a prosperous future.
    Mauritania has struggled to achieve a national identity that fully 
reflects its cultural, ethnic, and racial diversity. If confirmed, I 
will work to support Mauritanians in this important effort, and that 
includes pressing for the implementation of laws and policies that 
guarantee freedom from slavery for all Mauritanians and that hold 
accountable any individuals who infringe on the rights of others.
    The focus of my three decades of work as an American diplomat has 
been economic diplomacy. I take great pride in the contributions I have 
made to build bilateral economic ties and strengthen economic 
development in post-communist Eastern Europe and in Turkey, Iraq, and 
Pakistan. This is an area where I see significant opportunities in 
Mauritania. Bilateral commercial relations have expanded dramatically 
in recent years, including with the discovery of sizeable offshore 
natural gas resources by an American firm. A new American business 
forum has just been established in Nouakchott. If confirmed, I look 
forward to expanding our commercial and economic partnership in a 
manner that will provide increased economic opportunities for all of 
Mauritania's citizens, while also supporting America's national 
interests.
    My recent assignments have included some of our toughest Foreign 
Service posts, notably my last overseas assignment leading our 
consulate in Karachi, Pakistan. I take very seriously the 
responsibility of a Chief of Mission to protect the security and safety 
of all resident Americans and of all U.S. Government employees.
    Mr. Chairman and members of the committee, it has been my great 
privilege and honor to represent the United States over the past thirty 
years, and to advance the interests of the American people in every 
country in which I have worked. If confirmed, I look forward to 
building on the achievements of Ambassador Larry Andre and his team and 
further advancing an American-Mauritanian partnership based on shared 
values and shared interests.
    I welcome any questions you may have. Thank you for your kind 
consideration of my nomination.


    Senator Flake. Thank you.
    Ms. Fite?

STATEMENT OF NINA MARIA FITE, OF PENNSYLVANIA, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF ANGOLA

    Ms. Fite. Mr. Chairman, Ranking Member Booker, I am honored 
to appear before you today as President Trump's nominee to 
serve as the next U.S. Ambassador to the Republic of Angola. I 
am grateful to the President and Secretary Tillerson for the 
confidence and trust they have placed in me with this 
nomination.
    If confirmed, I will devote myself to advancing U.S. 
interests and values, as I have throughout my 27-year career in 
the Foreign Service. I will work closely with this committee 
and other Members of Congress on our shared interests and 
strengthening the partnership between the United States and 
Angola.
    I would like to introduce my sister Tereza and her husband 
Peter who have traveled here from California via a week down 
the shore. Just putting in your New Jersey credit there. And I 
would also like to acknowledge my brother Richard and his wife 
Ruth, who were unable to be here with me today. For nearly 30 
years, my path of service has meant that I have not been able 
see them as much as I would have liked, but their support has 
sustained me every step of the way, as it does today. I would 
like also a moment to acknowledge my deceased parents, who 
instilled in me a dedication to public service and a love of 
international affairs.
    Angola is the United States' third largest trading partner 
in sub-Saharan Africa and the second largest oil producer in 
that region. Diplomatically, the United States has benefited 
from a strong and productive partnership with Angola. The 
Angolan Government has been an effective voice for peace in the 
region and has proven an excellent partner in our efforts in 
other African countries facing crisis, including those in the 
Democratic Republic of the Congo and the Central African 
Republic. We have a shared interest in seeing a peaceful, 
prosperous, and stable African continent.
    15 years ago, a resource-rich Angola emerged from its civil 
war as a major economic power in the region. Some U.S. 
businesses have thrived in Angola for decades, with many 
commercial relationships that predate our bilateral diplomatic 
relationship.
    While there are significant opportunities for U.S. 
companies, the commercial landscape remains challenging. 
Corruption remains widespread throughout society, and the 
country's economy requires diversification so that its security 
and prosperity are not dependent on oil prices. The U.S. 
supports Angola's goal of broadening its economy and creating a 
business climate that is more attractive and transparent for 
international partners. If confirmed, I will work closely with 
U.S. companies and the Government of Angola to advance U.S. 
commercial interests to create the best climate possible for 
American businesses. An improved business environment in Angola 
will also bring benefits and jobs to the United States and to 
our economy.
    When I served in Angola a decade ago, the United States was 
instrumental in helping the Angolan people prepare for national 
elections, in which many voted for the very first time in their 
lives. And 2 months ago, Angola marked a milestone in its 
democratic progression and elected its first new president in 
38 years. As President Lourenco articulates his vision for 
Angola, I believe it is an opportune time to deepen our 
relationship. We must build on our burgeoning defense 
cooperation and strong economic ties, while working to expand 
the space for democratic debate, to empower Angolan civil 
society and to reinforce Angola's foundations for democracy. If 
confirmed, I will focus my efforts on strengthening our 
dialogue on these important issues.
    Angola has the economic means to achieve substantial 
improvements in health outcomes for its people, including 
infant mortality, a measure by which Angola has fallen 
tragically short of its potential. The United States has 
supported Angola with targeted technical assistance in the 
health arena, fighting malaria, tuberculosis, and HIV. We also 
support Angola in its goal to make the country landmine-free by 
2025, an achievement that would help end one of the most 
painful reminders of its devastating civil war. If confirmed, I 
will focus on helping new models of assistance evolve as 
African nations like Angola mature economically and socially.
    Since I was last there, Angola has continued to move 
forward from the effects of its long civil war. But then, as 
now there is more work to be done. I will bring the experiences 
of my State Department career, including tours in Afghanistan 
and Pakistan, to advance U.S. interests in Angola, and a 
prerequisite to advancing any of our goals is ensuring the 
safety and wellbeing of all Americans, whether members of the 
embassy team or private citizens working, living, or doing 
business in Angola.
    Mr. Chairman, Mr. Ranking Member, thank you again for your 
enduring interest and support for engagement. I look forward to 
your questions.
    [Ms. Fite's prepared statement follows:]


                 Prepared Statement of Nina Maria Fite

    Mr. Chairman, Ranking Member Booker, and members of the committee, 
I am honored to appear before you today as President Trump's nominee to 
serve as the next U.S. Ambassador to the Republic of Angola. I am 
grateful to the President and Secretary Tillerson for the confidence 
and trust they have placed in me with this nomination. If confirmed, I 
will devote myself to advancing U.S. interests and values, as I have 
throughout my 27-year career in the Foreign Service. I will work 
closely with this committee and other Members of Congress on our shared 
interests in strengthening the partnership between the United States 
and Angola.
    I would also like to introduce my sister, Tereza, and her husband, 
Peter who have traveled here from California; and acknowledge my 
brother Richard and his wife Ruth who were unable to be here today. For 
nearly 30 years, my path of service has meant I have not been able to 
see them as much as I would have liked, but their support has sustained 
me every step of the way, as it does today. I would also like to take a 
moment to acknowledge my deceased parents, who instilled in me a 
dedication to public service and a love of international affairs.
    Angola is the United States' third-largest trading partner in sub-
Saharan Africa, and the second-largest oil producer in that region. 
Diplomatically, the United States has benefited from a strong and 
productive partnership with Angola. The Angolan government has been an 
effective voice for peace in the region and has proven an excellent 
partner in our efforts in other African countries facing crisis, 
including the Democratic Republic of the Congo and the Central African 
Republic. We have a shared interest in seeing a peaceful, prosperous, 
and stable African continent.
    Fifteen years ago, a resource-rich Angola emerged from its civil 
war as a major economic power in the region. Some U.S. businesses have 
thrived in Angola for decades, with many commercial relationships that 
predate the bilateral diplomatic relationship. While there are 
significant opportunities for U.S. companies, the commercial landscape 
remains challenging. Corruption remains widespread throughout society, 
and the country's economy requires diversification so that its security 
and prosperity are not dependent on oil prices. The United States 
supports Angola's goal of broadening its economy and creating a 
business climate that is more attractive and transparent for 
international partners. If confirmed, I will work closely with U.S. 
companies and the Government of Angola to advance U.S. commercial 
interests to create the best climate possible for American businesses. 
An improved business environment in Angola will also bring benefits and 
jobs to the United States and our economy.
    When I served in Angola a decade ago, the United States was 
instrumental in helping the Angolan people prepare for national 
elections, in which many voted for the first time in their lives. Two 
months ago, Angola marked a milestone in its democratic progression and 
elected its first new president in 38 years. As President Lourenco 
articulates his vision for Angola, I believe it is an opportune time to 
deepen our relationship. We must build on our burgeoning defense 
cooperation and strong economic ties, while working to expand the space 
for democratic debate, to empower Angolan civil society, and to 
reinforce Angola's foundations for democracy. If confirmed, I will 
focus my efforts on strengthening our dialogue on these important 
issues.
    Angola has the economic means to achieve substantial improvements 
in health outcomes for its people, including infant mortality, a 
measure by which Angola has historically fallen tragically short of its 
potential. The United States has supported Angola with targeted 
technical assistance in the health arena, fighting malaria, 
tuberculosis, and HIV. We also support Angola in its goal to make the 
country landmine free by 2025, an achievement that would help end one 
of the most painful reminders of its devastating civil war. Some of 
this newly cleared land has returned to agricultural use, while other 
parcels have been used for new schools, allowing more Angolan children 
to receive a formal education. If confirmed, I will focus on helping 
new models of assistance evolve as African nations like Angola mature 
economically and socially.
    Since I was last there, Angola has continued to move forward from 
the effects of its long civil war. But now, as then, there is more work 
to be done.Mr. Chairman, if confirmed, I will bring the experiences of 
my State Department career, including tours in Afghanistan and 
Pakistan, to advance U.S. interests in Angola. A prerequisite to 
advancing any of our goals is ensuring the safety and wellbeing of all 
Americans, whether members of the Embassy team or private citizens 
working, living, or doing business in Angola.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
thank you again for your enduring interest and support for our 
engagement in sub-Saharan Africa and for this opportunity today. I look 
forward to your questions.


    Senator Flake. Thank you.
    Mr. Foote?

 STATEMENT OF DANIEL L. FOOTE, OF NEW YORK, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF ZAMBIA

    Mr. Foote. Mr. Chairman, Ranking Member Booker, I think you 
have earned the concise version of my statement today.
    I am honored to appear before you as President Trump's 
nominee to serve as the United States Ambassador to the 
Republic of Zambia. If confirmed by the Senate, I will work 
with Congress to advance American interests in Zambia.
    Please allow me to thank my beloved family for their 
inspiration, support, and sacrifice. First and foremost is my 
wonderful wife Claudia, without whom none of this would be 
possible. I am blessed to share this special day with my 
daughter Cecilia and remotely and later, because I expect my 
son at boarding school should be on the football field right 
now at practice. I would also like to thank my parents, Curt 
and Caroline, and my outstanding friends.
    My heart goes out to the victims and families of the tragic 
events in Las Vegas yesterday, and while not related this time 
to foreign policy, I am struck by the importance of diplomacy 
in protecting the American people.
    Zambia is a strong partner, and if confirmed, I will 
energetically promote our citizens' shared values of diplomatic 
principles, greater prosperity, regional stability, and 
improved health and education.
    While we have long appreciated Zambia's democratic history, 
it must remain focused on its democratic environment. 
Developments such as problematic media restrictions and 
treatment of opposition members tarnish its reputation. If 
confirmed, I plan to promote constructive dialogue aimed at 
reconciliation and the restoration of Zambia's strong 
democratic traditions. I will staunchly advocate for human 
rights and freedoms and the inclusion of all in democratic 
processes.
    Improved economic growth is vital to create employment, to 
improve the lives of people, to create market opportunities for 
U.S. entities. And if confirmed, I will strive to boost 
prosperity and increase U.S. trade and investment in Zambia.
    Zambia, as a dependable peacekeeping contributor and a 
welcoming sanctuary for refugees fleeing conflict, has the 
potential to be a great regional leader. If confirmed, I will 
cultivate Zambia's ongoing efforts to advance regional 
stability.
    Healthy and engaged populations are critical to 
advancement. Our development in health programs in Zambia have 
saved millions of lives and educated a generation of people. I 
commit to officially implement our assistance programs in 
Zambia as a faithful steward of U.S. taxpayer funds.
    Having served across the globe, including twice in Iraq, 
once in Afghanistan, and once in Haiti, I have developed a 
sense of what I think it takes to run a happy and safe embassy. 
If confirmed, Mr. Chairman, Mr. Ranking Member, I pledge to you 
to lead a productive, high-morale embassy working for the 
American people and fortifying the U.S. relationship with 
Zambia.
    I thank you for the privilege of appearing today and I 
welcome your questions.
    [Mr. Foote's prepared statement follows:]


                   Prepared Statement of Daniel Foote

    Chairman Flake, Ranking Member Booker, and members of the 
committee, I am honored to appear before you as President Trump's 
nominee to serve as the United States Ambassador to the Republic of 
Zambia. I am grateful for the confidence President Trump and Secretary 
Tillerson have placed in me. If confirmed, I will work with Congress to 
advance American interests in Zambia.
    I want to express deep appreciation to everyone who helped me 
through this incredible journey. Please allow me to recognize and thank 
my beloved family, as my key source of inspiration through their 
indispensable support and incalculable sacrifice. Foremost is my wife 
Claudia, to whom I owe everything. I'm blessed to share this special 
moment with my children, Cecilia--here today with Claudia--and, if only 
via C-SPAN, with Danny, who is away at school. I hope you three are a 
fraction as proud of me as I am of you. And to my parents, Curt and 
Caroline, my siblings, and many mentors. I believe my diplomatic 
service, in diverse and increasingly challenging jobs in ten countries 
and the United States, provides me with a strong foundation to serve 
successfully as Ambassador, if confirmed. I expect my broad experience 
advancing human rights, democracy, security, development, education, 
and health will enable me to further American interests effectively.
    I have great respect for the importance of diplomacy in protecting 
our nation and the American people by strengthening ties and 
partnerships. Zambia is a strong partner with which we share democratic 
values and goals of development, economic growth, and regional 
stability. If confirmed, Senators, I pledge to protect U.S. citizens 
and interests by energetically promoting democratic principles, broad-
based economic growth and development, regional security, and improved 
health and education outcomes. Additionally, I commit to secure, 
develop, and lead the dedicated professionals, and their families, at 
Embassy Lusaka, and to protect all Americans in Zambia.
    While Zambia carries a record of stable democratic transitions, it 
needs to maintain and advance its democratic achievements. I am 
concerned that, in recent years, we have seen problematic media 
restrictions and treatment of opposition members. Such developments 
tarnish Zambia's democratic reputation. If confirmed, I will be a 
staunch advocate for human rights; the promotion of open and 
constructive dialogue among political parties, media, and civil 
society; and the equal inclusion of all citizens in democratic 
processes. I will also encourage Zambia to realize its potential as a 
regional democratic leader.
    Zambia's eventual success in diversifying its economy from copper 
into sectors such as agriculture, energy, and tourism would create 
employment, reduce debt, enhance stability, and provide market 
opportunities for U.S. companies and investors. If confirmed, I will 
use all the tools of the U.S. government to enhance transparency and 
improve the operating environment for U.S. firms working in or with 
Zambia. I will work to increase U.S. trade and investment with Zambia, 
as the U.S. representative to the region's economic group, the Common 
Market for Eastern and Southern Africa (COMESA), and through the 
African Growth and Opportunity Act (AGOA),
    Reinforcing our existing partnership can help Zambia expand its 
role as a good neighbor in the region and as a positive, global actor. 
Supported by U.S. military training and assistance, Zambia has become a 
dependable peacekeeping contributor in the Central African Republic. 
Zambia has welcomed those fleeing conflict for decades, and it hosts an 
estimated 55,000 current and former refugees. If confirmed, I will 
cultivate Zambia's continuing efforts to advance regional and global 
stability.
    Productivity and strong partnerships begin with healthy and engaged 
populations, and the United States' and Zambia's combined efforts have 
delivered impressive results. Our PEPFAR (the President's Emergency 
Plan for AIDS Relief) partnership investment in Zambia has saved 
millions of lives, and, since 2004, increased the number of Zambians 
with access to antiretroviral therapy (ART) from 3,500 to more than 
800,000. As a result, Zambia is on track to achieve epidemic control of 
HIV/AIDS by 2020.
    Additionally, the Millennium Challenge Corporation (MCC) Compact 
with Zambia is providing $355 million to improve the lives of over 1.2 
million people, and support the government's efforts to improve water 
and sanitation services. If confirmed, I will continue to implement our 
assistance programs constructively and with accountability and ensure 
American taxpayers' funds are spent effectively. I will encourage 
increased efforts by the Zambian government to provide for its 
citizens.
    To conclude, Mr. Chairman: if confirmed, my duty would be, first 
and foremost, to the American people. I promise to strive to lead an 
effective Embassy, protect and develop our people, and fortify U.S.-
Zambia relations.
    I thank you for the privilege of appearing before you today, and I 
welcome your questions.


    Senator Flake. Mr. Reimer?

STATEMENT OF DAVID DALE REIMER, OF OHIO, A CAREER MEMBER OF THE 
 SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
AMERICA TO THE REPUBLIC OF MAURITIUS, AND TO SERVE CONCURRENTLY 
AND WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR EXTRAORDINARY 
  AND PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
                     REPUBLIC OF SEYCHELLES

    Mr. Reimer. Mr. Chairman, Ranking Member Booker, I am 
honored to appear before this committee today as the 
President's nominee to be the next United States Ambassador to 
the Republic of Mauritius and the Republic of Seychelles. I am 
grateful for the confidence and trust that the President and 
Secretary Tillerson have placed in me.
    I would like to introduce my wife Simonetta Romanola. 
Simonetta and I have been married for a grand total of 2 and a 
half months. Simonetta is Italian. However, she has worked for 
the U.S. Department of State longer than I have, over 30 years 
at the U.S. consulate in Milan, Italy.
    I would also like to acknowledge my parents, Richard and 
Lois Reimer, who could not be here today, as well as my brother 
Paul and my sister Sue.
    Democracy and trade continue to be important elements of 
our bilateral relationship with the Republic of Mauritius. 
Mauritius is politically stable, committed to democracy, 
ethnically diverse, and economically strong. Since its 
independence from the United Kingdom nearly 50 years ago, the 
country has gone through a remarkable economic transformation 
from an economy based on sugar production to a diversified 
economy of export-oriented manufacturing, tourism, and 
financial and business services. In many ways, Mauritius is a 
model, politically and economically, for Africa and the rest of 
the developing world.
    A challenge in our bilateral relationship with Mauritius is 
its claim of sovereignty over the British Indian Ocean 
territory, which Mauritians call the Chagos Islands. Together 
with the United Kingdom, we have operated Naval Support 
Facility Diego Garcia in these islands for the last 50 years. 
Mauritius has taken its sovereignty claim to the International 
Court of Justice for an advisory opinion. However, we continue 
to strongly support the UK's longstanding territorial claim.
    As a career diplomat and economic officer, I bring years of 
experience to the task of promoting democracy and economic 
prosperity for the benefit of the United States and our 
partners around the world. I have visited Mauritius several 
times, and my service in Africa, the Caribbean, Europe, and the 
Middle East has prepared me for the challenges and 
opportunities of this post. If confirmed, I will work with the 
Mauritian Government and people and encourage them to embrace 
leadership roles to promote democracy and build economic 
prosperity in the region, which will also benefit the American 
people. I look forward to the opportunity to promote U.S. 
exports and investment in both Mauritius and Seychelles.
    The United States Government enjoys a positive bilateral 
relationship with Seychelles. In the recent past, the 
Government of Seychelles has been a steadfast partner in 
fighting maritime piracy off the Horn of Africa. The near 
elimination of that scourge owes much to the efforts of the 
Seychelles. We continue to partner with the Seychelles people 
and government in the fight against piracy, terrorism, drug 
trafficking, and illegal fishing.
    On the economic side, Seychelles has the highest per capita 
income in Africa. However, income is not evenly distributed and 
poverty remains. Over the last 8 years, though, Seychelles has 
implemented needed economic reforms and the economy remains on 
a positive track. In the last year, Seychelles has adapted well 
to a political environment in which, for the first time in the 
country's history, the presidency and the legislature are 
controlled by opposing parties. If confirmed, I will encourage 
Seychelles to continue with its economic reforms, to continue 
to improve its human rights standing, and to continue its 
growth as a strong, fully functioning democracy. Although our 
embassy is located in Mauritius, if confirmed, I intend to 
travel frequently to the Seychelles.
    My highest priority, if confirmed, will be the protection 
of Americans living and traveling in Mauritius and Seychelles. 
I commit to you to serve as an energetic advocate for U.S. 
business and to promote U.S. investment opportunities. I will 
be a careful steward of U.S. resources in Mauritius and 
Seychelles.
    Mr. Chairman, I am deeply honored to be nominated for the 
post of Ambassador to Mauritius and Seychelles. If confirmed by 
the Senate, I look forward to working closely with you and 
other members of the committee. I welcome your questions.
    [Mr. Reimer's prepared statement follows:]


                Prepared Statement of David Dale Reimer

    Mr. Chairman, Ranking Member Booker, and members of the committee, 
I am honored to appear before this committee today as the President's 
nominee to be the next United States Ambassador to the Republic of 
Mauritius and the Republic of Seychelles. I am grateful for the 
confidence and trust that the President and Secretary Tillerson have 
placed in me.
    Democracy and trade continue to be important elements of our 
bilateral relations with the Republic of Mauritius. Mauritius is 
politically stable, committed to democracy, tolerant of ethnic 
diversity, and economically strong for nearly fifty years, since its 
independence from the United Kingdom. The country has gone through a 
remarkable economic transformation from an economy based on sugar 
production to a diversified economy based on export-oriented 
manufacturing, tourism, and the financial and business services 
sectors. In many ways, Mauritius is a model, politically and 
economically, for Africa and the rest of the developing world.
    A challenge in our bilateral relationship with Mauritius is its 
claim of sovereignty over the British Indian Ocean Territory, which 
Mauritians call the Chagos Islands. Together with the United Kingdom, 
we have operated Naval Support Facility Diego Garcia in these islands 
for the last fifty years. Diego Garcia is a strategic military base for 
our armed forces in the region. Mauritius has taken its sovereignty 
claim to the International Court of Justice for an advisory opinion, 
and we continue to strongly support the UK's long-standing territorial 
claim.
    As a career diplomat and economic officer, I bring years of 
experience to the task of promoting democracy and economic prosperity 
for the benefit of the United States and its partners around the world. 
I have visited Mauritius several times, and my service in Africa, the 
Caribbean, Europe and the Middle East has prepared me for the 
challenges and opportunities of this post. If confirmed, I will work 
with the Mauritian government and people to encourage them to embrace 
more strongly leadership roles that will promote democracy and build 
economic prosperity in the region, which will also benefit the American 
people. As a former Economic and Commercial Officer overseas, I look 
forward to the opportunity to promote U.S. exports and investment in 
both Mauritius and the Seychelles.
    The United States Government enjoys a positive bilateral 
relationship with the Government of Seychelles. In the recent past, the 
Government of Seychelles has been a steadfast partner in fighting 
maritime piracy in the Horn of Africa. The near-elimination of that 
scourge owes much to Seychelles' efforts. We continue to partner with 
the Seychelles' people and government in the fight against piracy, 
terrorism, drug trafficking, and illegal fishing.
    On the economic side, Seychelles has the highest per capita income 
in Africa, although it is not evenly distributed, and poverty still is 
problematic across the country. Over the last eight years, Seychelles 
has achieved needed economic reforms, and the economy remains on a 
positive track. In the last year, Seychelles has adapted well to a 
political environment in which the Presidency and Legislature are 
controlled by opposing parties. This is the first time this has 
happened in the history of the country. If confirmed, I will encourage 
Seychelles to continue with its economic reforms, to continue to 
improve its human rights standing, and to continue its growth as a 
strong, fully-functioning democracy. Although the United States Embassy 
is located in Mauritius, if confirmed, I intend to travel frequently to 
the Seychelles.
    If confirmed, my highest priority will be the protection of 
Americans living and traveling in Mauritius and Seychelles. I commit to 
you to serve as an energetic advocate for the promotion of U.S. 
business and investment opportunities and will be a careful steward of 
U.S. resources in Mauritius and Seychelles.
    I am deeply honored to be nominated for the post of Ambassador to 
Mauritius and Seychelles. If confirmed by the Senate, I look forward to 
working closely with you and other members of the committee. I welcome 
your questions.


    Senator Flake. Well, thank you. And might I say that is not 
a bad place to honeymoon too. [Laughter.]
    Senator Flake. I have spent time in southern Africa and a 
lot of people would go to Mauritius and the Seychelles, and I 
have not yet been there. So I look forward to being there.
    Mr. Dodman, with regard to Mauritania, they have taken a 
step backward a bit with regard to governance. There is an 
upcoming 2019 presidential election that will certainly send a 
signal as to where they are going. How important is that? How 
important is our presence there in ensuring that they have 
proper governance? It is obviously important to our security 
arrangements with them.
    Mr. Dodman. Thank you, Senator.
    Yes, you are right. The presidential election is coming up 
in 2019. It is critical. Mauritania has a history of autocratic 
governance. There has not been a transition from one 
democratically elected government to another in Mauritania. So 
this upcoming election in 2019 is important. President Aziz has 
stated repeatedly that he intends to step down at the end of 
his two terms, as is required by the constitution, and 
certainly, if confirmed, part of my dialogue with the president 
and with all the figures in Nouakchott will be to continue the 
dialogue that Ambassador Andre has had about the importance of 
that transition specifically and of democracy more broadly.
    Democracy is the foundation for a stable society. 
Mauritania, of course, is a strong partner on counterterrorism 
issues, but my message will be, if confirmed, that in order to 
maintain the stability that is important to Mauritania and 
important to the United States, it is critical that human 
rights be respected, all human rights. I am certainly including 
working on slavery and actively removing slavery and all of its 
vestiges in Mauritania, but also that democratic transition.
    Both Ms. Fite and I were in Pakistan when Pakistan also had 
its first democratic transition from one democratically elected 
government that completed its full term and went on to be 
replaced by another democratically elected government. So I 
have seen firsthand the importance that one single election can 
make to a country's trajectory, and that is certainly a message 
I will be carrying to Nouakchott, if confirmed.
    Senator Flake. Thank you.
    With regard to Angola, we met in my office before President 
Lourenco gave his inaugural address. How do you expect things 
to change? I am assuming the effort will be to make sure that 
oil wealth is spread more broadly than in the past. I think all 
any of us can remember after 38 years is dos Santos in that 
position. What is going to change there?
    Ms. Fite. Thank you, Mr. Chairman. In his inaugural 
address, President Lourenco talked about diversifying the 
economy and developing the economy and getting it away from oil 
wealth because I think he is recognizing that it is a difficult 
time to be dependent on oil when the prices are so low. At the 
same time, he addressed the need to combat corruption. He also 
addressed a need to have multiple voices and perhaps voices 
that do not agree with you speaking and being heard. So he made 
a number of comments. He talked about education, addressing 
technical training for Angolans, young Angolans. He talked 
about his youth bulge and how to create jobs and an economy for 
those people.
    I think the truth will be 6 months from now, a year from 
now, how does he deliver on those. But as a U.S. Ambassador, I 
would certainly encourage him to do everything he can to 
deliver on those promises in his inaugural speech and also in 
his campaign speeches.
    Senator Flake. Thank you.
    Mr. Foote, low copper prices have really hobbled a lot of 
the governments around, and Zambia is pretty reliant on that. 
How are they going to diversify? What can they do and how can 
we help them?
    Mr. Foote. Well, you are exactly right, Senator, and thank 
you for that question.
    While prices have rebounded 35 percent so far this year and 
perhaps alleviated some of the urgency for structural reform, I 
think that is important for Zambia to undertake. 
Diversification into sectors such as construction, 
infrastructure, agriculture, energy, and tourism will be 
important. A focus on fiscal management, better transparent 
regulatory trade and other frameworks, and creating a 
predictable and level playing field to reduce uncertainty and 
attract businesses and private sector investors is going to be 
critical for them.
    Senator Flake. Thank you.
    Mr. Reimer, when we spoke in my office, we talked about 
there is not an issue right now in Mauritius or the Seychelles 
with any terrorist cells or security issues like that, but 
strategically they are important places with regard to piracy. 
Seychelles is in a tough neighborhood, I guess, in that regard. 
What are we doing or what are they doing to combat piracy? How 
much of an issue is that?
    Mr. Reimer. Thank you for that question, Senator.
    In the recent past, Seychelles has been an outstanding 
partner in that area. We have provided training to government 
officials, and in turn, the Government of Seychelles has tried, 
convicted, and imprisoned more pirates than any other country 
in the world. Thankfully, the scourge of piracy is greatly 
diminished, and so we do not have that problem as we had 
before. But we continue with an excellent security relationship 
with the Seychelles. It is a very popular port of call for the 
U.S. Navy, and we have done a little bit of security assistance 
for the country as well. So we have a good record and an 
excellent ongoing relationship.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. Thank you very much, Mr. Chairman.
    Mr. Dodman, can I just start with you real quick because I 
know Mauritania, along with Mali, Niger, Chad, and Burkina Faso 
is part of the G5 Sahel, which has proposed a multinational 
counterterrorism and border security force. Correct? And I 
guess that is why I found it sort of surprising to me that 
President Trump added Chad to the administration's travel ban 
list, prompting the Chadian Government and France, which has 
worked closely with Chad and with us, frankly, to counter 
terrorism in the Sahel. And I have been one of those people 
sort of questioning this as France and the Chadian Government 
have been asking the administration to reverse this 
determination.
    So I guess a few questions. I will throw them out there and 
let you respond. But what, if any, impact do you think that the 
travel ban designation regarding Chad will have on the G5's 
operational capacity and the U.S.'s ability to provide 
assistance to its component of the forces? To what extent do 
you think the designation will make other Sahel countries more 
reticent to work with the United States? What factors do you 
think enabled Mauritania to escape the similar designation? 
What differentiates them from Chad? And do you believe that the 
criteria that the administration used to add Chad to the travel 
ban that maybe Mauritania is at risk of being added to a travel 
ban in the future? And if so, what effect will that have in our 
security efforts?
    Mr. Dodman. Thank you, Senator.
    I will be honest up front and say I will not be able to 
give a full answer to it. I have not been working this issue. I 
have been working economic issues. I still am working economic 
issues. So I was not directly involved in any of the 
preparation of the review of all of the countries and their 
information sharing agreements.
    What I can tell you is that Chad is a critical 
counterterrorism partner to the United States. That is 
absolutely true. They are critical to the success of the G5 as 
an organization that promotes not just security and 
counterterrorism cooperation among the five but promotes 
development and growth and trade and all the sorts of things 
that we would like to see these five Sahelian countries work 
more closely to promote their own growth and stability.
    What it means for the G5 and our potential assistance to 
the organization in terms of building up these joint forces--I 
do not believe that there is any direct correlation, but I 
would have to get back to you with a more formal answer after I 
have looked into that and checked into it.
    As I understand the process that was announced a few weeks 
ago, there is a clear set of steps for each of the countries 
that was designated to move forward in terms of working in 
cooperation with the State Department and with the Department 
of Homeland Security on sharing of information. It is all about 
sharing of information.
    Certainly discussions are underway. I assume discussions 
are underway between Chad and the U.S. Government now about how 
to meet those requirements.
    And certainly when I get to Mauritania, should I get to 
Mauritania, I will be working with the Mauritanian Government 
to make sure that that form of cooperation on border security 
issues continues because the last thing any of us would want to 
see is to have our strong partnership on counterterrorism 
issues be at all harmed by any failure to provide the 
information requested.
    Senator Booker. Thank you, sir.
    Mr. Foote, in Zambia, 43 percent of the women aged 15 to 49 
have experienced physical violence. When women live in fear of 
violence, when girls are married too young, taken out of 
school, a society faces tremendous long-term development 
challenges, not to mention the sheer evilness to have that 
level of percentage of your population having experienced 
violence. It is abhorrent and unacceptable.
    And I just wondered in your role, how are you planning on 
raising this as a serious concern? And how do you think you can 
help improve Zambia in meeting these challenges?
    Mr. Foote. Thank you, Senator.
    I agree wholeheartedly that gender-based violence and 
violence against vulnerable populations is a terrible drag on 
societies.
    I will encourage and engage with the government and with 
civil society to empower civil society to hold its government 
accountable.
    Additionally, I bring some experience from Afghanistan 
where we worked in establishing and broadening women's shelters 
and associated family guidance centers where we were able to 
sort of in the areas where we were working change the culture 
and make women and those who were vulnerable to or victims of 
gender-based violence comfortable to come in and seek help and 
assistance and get shelter and assistance. So that is an issue 
that I will take seriously, and I welcome any further guidance.
    Senator Booker. Well, I welcome you communicating with us 
about evidence-based programs that address this as something 
that we as a Congress might want to invest in.
    Mr. Foote. You have my commitment.
    Senator Booker. Thank you very much.
    Ms. Fite, a lot of talk about how much the Chinese are 
investing in sub-Saharan Africa, their presence there. We just 
talked about the base in Djibouti. It is tremendous. And I am 
wondering when it comes to investment and trade, how do you 
assess China's role in the Angolan economy and giving us a fair 
shot as we continue our economic relationship?
    Ms. Fite. Thank you, Senator.
    I believe that China's investment and presence in Angola is 
not a threat to the United States. I think that their 
relationship with Angola has gone on for a number of years. It 
is very much oil-based. And China has become, I think, Angola's 
largest importer of oil at this point.
    At the same time, I think we have some shared interests in 
Africa in general--the United States and China. And certainly 
China has helped in some humanitarian issues that we have been 
very concerned about. They provided I think more than $1 
million to Ebola eradication and treatments in West Africa in 
2014. They have also been involved in some of the other health 
issues.
    I think one thing that can happen, though, is with the U.S. 
there, we can, first off, help Angola develop a better business 
environment because I believe fundamentally that U.S. companies 
will compete very well and can win contracts against Chinese 
competitors because U.S. companies are known for high quality 
training and maintenance and training of technicians. And so I 
think these are things that, again, I do not see China as a 
competitor, but another--or sorry--not as a threat but just 
another competitor for products and for exports in Angola.
    Senator Booker. Thank you.
    Mr. Reimer, given the time, I am not going to ask you a 
question, but I will make two points. The first point is that 
Chairman Flake is--I know how hard of a worker he is in the 
United States Senate. I know he visits lots of hotspots. I 
doubt we will be doing a CODEL during your time there, but if 
he should choose to and believe that it is important, I will 
give full consideration to joining him. [Laughter.]
    Mr. Reimer. You both are very welcome, Senator.
    Senator Booker. And then my last comment is very simply 
congratulations. You will have to tell me about this marriage 
thing, if it is something I should explore myself. And I do 
want to say that your wife--you did not have any connections to 
New Jersey, sir, but your wife is Italian and we have the 
highest per capita Italian population in the entire United 
States of America in New Jersey. So she is welcomed to visit 
anytime.
    Mr. Reimer. Thank you, Senator.
    Senator Booker. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Booker.
    Thank you all, the witnesses in both panels today. We 
really benefit from your testimony. And as mentioned by Senator 
Booker, we hope that you will stay in touch with us and 
certainly interact with our offices when there are things that 
are needed. And hopefully we will get to visit some of you at 
least during the time. So we appreciate that.
    The record will remain open until the close of business 
today, including for members to submit questions for the 
record. We ask you to respond as quickly as you can, and your 
responses will be made part of the record.
    With the thanks of the committee, the hearing is now 
adjourned.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
            to Larry E. Andre by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Ambassador to the Islamic Republic of Mauritania since 
2014, I led my team to contribute toward eradicating slavery and its 
vestiges by working with both Mauritanian and American civil society 
organizations and coordinating the advocacy and programming activities 
of U.S. government agencies. Mauritanians closely identify the U.S. 
Embassy with the anti-slavery struggle. Our advocacy helped free 
imprisoned activists. Our programming increased funding to local 
organizations providing legal assistance to slaves resulting in 
liberation of slaves and successful prosecutions and other legal 
actions against slave owners.
    As Director of the Office of the Special Envoy for Sudan and South 
Sudan, serving multiple and lengthy stints as Charge d'Affaires in 
Juba, South Sudan, I strenuously advocated the release of imprisoned 
ruling party dissidents threatened with death for alleged treason, 
including attendance at their trials and visits to their places of 
detention. Once released, the dissidents were conducted directly to the 
Embassy, where they met with concerned members of the diplomatic 
community. Among only five Americans remaining at the Embassy following 
evacuation during factional fighting in Juba, I protested to the 
government the killing of civilians and threats to the United Nations-
managed camp in Juba for internally displaced persons. While the 
government continued to complain about the camp, there were no 
incursions while I was present (January-April 2014).
    I have advocated for human rights and democracy throughout my 
career, and, if confirmed, will continue to do so in Djibouti.

    Question 2. What are the most pressing human rights issues in 
Djibouti? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Djibouti? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Djibouti are the 
suppression of opposition political voices; the refusal to allow some 
groups to form legally recognized political parties; the harassment, 
abuse, and detention of some government critics; the government's 
denial of access to independent sources of information; and 
restrictions on freedoms of speech and assembly. I will advocate, both 
with the public and privately with Djibouti's leadership, for the 
strengthening of democratic institutions and the adoption of democratic 
practices as the best guarantors of long-term peace, prosperity and 
stability. Specifically, I will seek to influence the authorities to 
improve significantly the fairness and credibility of the legislative 
elections scheduled for 2018.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Djibouti in 
advancing human rights, civil society and democracy in general?

    Answer. Many Djiboutians see their neighbors to the south (Somalia) 
and to the east (Yemen) as examples of state failure, leading to 
collapse into violent anarchy. Djiboutian government authorities tend 
to fear that loosening political restrictions will increase the risk of 
severe instability within their country, with potentially disastrous 
consequences. It is our task to strongly and consistently advocate for 
human rights and responsive, democratic institutions as the best 
guarantors of peace, stability, and prosperity over the long term.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Djibouti? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, I am committed to working with both U.S. and local 
civil society organizations to promote our human rights objectives. 
This has been my practice throughout my career. If confirmed, I will 
direct all personnel under chief of mission authority to proactively 
implement the Leahy Law and similar provisions. I understand that our 
current security cooperation includes human rights components. I commit 
to review those components to ensure they are clear.

    Question 5. Will you and your embassy team actively engage with 
Djibouti to address cases of key political prisoners or persons 
otherwise unjustly targeted by Djibouti?

    Answer. Yes, if confirmed, I will lead our team to engage in this 
area, just as I did in Mauritania and in South Sudan. Djibouti's long-
term peace, stability, and prosperity requires rule of law and 
protections for individual citizens' political rights.

    Question 6. Will you engage with Djibouti on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. Yes. A formal objective of the U.S. Mission is that 
Djibouti achieve progress on human rights and good governance. If 
confirmed, I will advance that objective.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Djibouti?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. My experience leading U.S. Missions overseas confirms the 
research referenced in your question. If confirmed, and as I have done 
at other posts, I plan to mentor and maintain a diverse, inclusive 
Embassy team, including consideration of aspects of diversity relevant 
to our Djiboutian workforce and the composition of Djiboutian society.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. I will speak publicly and regularly, including in Town Hall 
and Country Team meetings, about my own commitment to diversity and 
inclusion and my expectations that all members of the Embassy team will 
experience and sustain an inclusive and supportive workplace. I will 
require all supervisors to promote an inclusive, supportive, and 
ethical workplace. I will encourage all supervisors to include in 
performance evaluations a comment on the supervisor's success in 
valuing diversity and promoting inclusion, and will recognize and 
commend efforts among supervisors to value diversity and foster 
inclusion. I will ensure that supervisors are cognizant of EEO 
principles and rules, and held accountable for respecting them. I will 
ensure prompt engagement, and corrective action when warranted, on any 
expressions of concern that the Embassy workplace does not value 
diversity or promote inclusion.

    Question 12. In the wake of President Guelleh's meeting with 
President Obama in 2014, the United States launched the U.S.--Djibouti 
Binational Forum.

   What issues were discussed as part of the Binational Forum? Will 
        the Forum continue? What issues should be covered as part of 
        the forum?

    Answer. The Binational Forum (BNF) covers issues in political, 
economic development, health, and military cooperation. In the 
political sphere, we were successful in our efforts to encourage 
Djibouti to join the Counter ISIS coalition, improve conditions for 
refugees in Djibouti, including educational opportunities for refugee 
children. Djibouti also agreed to host the Intergovernmental Authority 
on Development (IGAD) Center of Excellence for countering violent 
extremism (CVE). Further, we made progress in helping Djibouti improve 
efforts to combat trafficking in persons. In the economic development 
sphere, the BNF advanced USAID projects in workforce development and 
energy, and improved the positive economic impact of our military 
presence through the Djibouti First, and now Africa First, programs 
which aim to improve the local economy. In the military cooperation 
sphere, the BNF helps to deepen our military-to-military cooperation, 
ensure operational coordination, review security assistance, and 
respond to requests from the Government of Djibouti. The BNF has 
served, and continues to serve, as an important forum for U.S. 
engagement with Djibouti, which will be hosting the next BNF meeting in 
the spring of 2018.

    Question 13. If confirmed, what would be your approach to 
maintaining security cooperation while advocating for accountability 
and transparency in government?

    Answer. If confirmed, I will ensure that the Embassy team continues 
to emphasize the need for accountability and transparency in all of our 
engagements with the Government of Djibouti, not just in security 
cooperation. As I have done throughout my career, if confirmed, I will 
speak both publicly and privately in favor of Djiboutians developing 
transparent and accountable democratic institutions and instituting 
democratic norms as the best long-term guarantor of their nation's 
stability and prosperity. I will share our own nation's history of 
developing democratic institutions and practices.

    Question 14. How much has the United States provided to Djibouti in 
security assistance in each of the past four fiscal years?

    Answer. During Fiscal Years 2014-2017, the Department of State 
provided approximately $18.9 million in funding for security assistance 
to Djibouti. This amount includes funding from Foreign Military 
Financing (FMF), International Military Education and Training (IMET), 
and multiple Peacekeeping Operations (PKO)-funded programs, including 
the Africa Military Education Program (AMEP), African Maritime Security 
(AMS), Partnership for Regional East Africa Counterterrorism (PREACT), 
Global Peace Operations Initiative (GPOI--including Africa Contingency 
Operations Training and Assistance (ACOTA) training), and Non-
Proliferation, Anti-terrorism, demining, and Related Programs (NADR).
    In FY 2017, we provided approximately $4.236 million; in FY 2016 
$4.795 million; in FY 2015 $5.559 million; and in FY 2014, $4.316 
million in security assistance to Djibouti.

    Question 15. What are the major programs and funding sources for 
our security assistance programs?

    Answer. The major programs and funding sources for Department of 
State security assistance programs include:

   International Military Education and Training (IMET)--sending 
        Djiboutian officers to school in America side by side with our 
        officers and NCOs;
   Foreign Military Finance (FMF)--providing financing for the 
        purchase of U.S.- manufactured military equipment and training;
   Various Peacekeeping Operations (PKO)-funded programs, including:

      <all>  The Global Peace Operations Initiative (GPOI)--including 
            the Africa Contingency Operations Training and Assistance 
            program--supporting Djiboutian peacekeepers;
      <all>  Counterterrorism programming under PREACT;
      <all>  Africa Military Education Program (AMEP)--which is working 
            on curriculum development at the Djiboutian military 
            academies;
      <all>  African Maritime Security (AMS)--working with the 
            Djiboutian Navy and Coast Guard
      <all>  Non-Proliferation, Anti-Terrorism, Demining, and Related 
            Programs (NADR) funding for the Antiterrorism Training and 
            Assistance (ATA) program.

    Question 16. How much development and humanitarian aid have we 
provided to Djibouti in each of the past four fiscal years, and what 
are the major areas of focus?

    Answer. Over the last four fiscal years, the United States provided 
development assistance to Djibouti in the following amounts: FY 2014 
$11,735,000; FY 2015 $19,904,000; FY 2016 $19,008,000; and FY 2017 
(allocation) $16,900,000. Humanitarian assistance to Djibouti over the 
same period is as follows: FY 2014 $6,022,137; FY 2015 $5,166,137; FY 
2016 $6,566,137; and FY 2017 (allocation) $5,100,000. The major focus 
areas of assistance are Health-HIV/AIDS, Humanitarian Assistance, 
Workforce Development, Basic Education, and Civil Society.

    Question 17. The United States pays a reported $68 million a year 
to lease Camp Lemonnier. What steps did we take to ensure that the 
proceeds would be used to support spending on social services that 
benefit the poor and underserved population in Djibouti?

    Answer. The U.S. encourages the Government of Djibouti to use its 
resources to expand economic opportunity for the poor and underserved, 
and to provide support for refugees, migrants, and groups vulnerable to 
trafficking. This advocacy has produced a notable success: This year, 
the government welcomed refugee youth into the national education 
system. The Government of Djibouti recently agreed to pay for 18 health 
personnel to work at the International Organization's Migration (IOM) 
Response Center in Obock. With trafficking, we have increasingly 
encouraged the Government of Djibouti to provide more social services 
to trafficking victims, and the Minister of Health (MOH) has requested 
IOM to provide training in counter trafficking in persons for MOH 
personnel.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to Peter Henry Barlerin by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have been a consistent advocate for human rights 
throughout my Foreign Service career. In my first tour at the Consulate 
General in Lubumbashi, Zaire nearly 30 years ago, I conveyed our 
government's concern by visiting the family of a human rights lawyer 
who had been arrested by the Zairian government. I also met with a 
professor at the University of Lubumbashi who had had run-ins with 
government authorities. The day after Presidential Guard forces were 
alleged to have attacked and killed a number of University of 
Lubumbashi students, I went directly to my neighbor, the local 
commander, to protest and demand an explanation. The commander was 
replaced in the wake of ongoing scrutiny of the incident.
    As Deputy Director in the Office of Regional and Security Affairs 
from 2007-2009, I oversaw Leahy vetting and Africa Bureau input into 
the State Department's Human Rights Reports. I also represented the 
United States in international contact group meetings in Conakry, 
Guinea, to try to convince Guinean coup leader Dadis Camara to step 
down, and later attended a contact group meeting in Paris, France to 
try to induce Mauritanian coup leader Mohamed Ould Abdel Aziz to 
release the detained Prime Minister and organize elections. Dadis 
Camara was eventually replaced by democratically elected President 
Alpha Conde and Abdel Aziz ultimately stepped down as head of state in 
order to run for President in accordance with the Mauritanian 
constitution. He was elected President in an election that was deemed 
largely free, fair, and credible.
    As Deputy Chief of Mission in Bamako, Mali, with the assistance of 
a very talented entry level officer, I succeeded in getting Mali to 
take the necessary concrete actions against trafficking in persons to 
be upgraded to Tier 2 after being on Tier 2 Watch List status for two 
years in a row and facing an automatic downgrade to Tier 3. Tier 3 
would have entailed withholding of all non-humanitarian foreign 
assistance. I made multiple, high-level demarches including to the 
President and the Prime Minister to impress upon them the possibility 
of losing badly needed U.S. foreign assistance if they did not show 
more progress in fighting trafficking in persons. In the end, we 
prevailed.
    After a coup overthrew the democratically elected president of Mali 
in March 2012, I was the first American to call coup leader Amadou 
Sanogo to demand that he step down and to insist that the military 
return to their barracks. I met regularly with civil rights groups and 
opposition politicians including Ibrahim Boubacar Keita, who went on to 
be elected president of Mali. After my departure, Sanogo was detained 
and remains in prison.
    As Deputy Assistant Secretary of State with oversight 
responsibility for West Africa and then as acting Principal Deputy 
Assistant Secretary of State and finally, as Senior Official in the 
Africa Bureau, I consistently sought to advance human rights and 
democracy in sub-Saharan Africa. In particular, we supported an effort 
by the Economic Community of West African States to convince Yahya 
Jammeh, a dictator who had ruled The Gambia for 23 years, that he 
should respect the results of the election that had ousted him. I 
worked with our Embassies and the team back in Washington to support 
free, fair, and credible elections in Burkina Faso, Niger, Nigeria, and 
Ghana, among other countries. I met with opposition leaders from the 
several countries and pressed government leaders in many countries to 
show respect for human rights and constitutional term limits.

    Question 2. What are the most pressing human rights issues in the 
Republic of Cameroon? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in the 
Republic of Cameroon? What do you hope to accomplish through these 
actions?

    Answer. Over the last year, the most significant challenges to 
human rights and democracy in Cameroon include the ongoing situation in 
the South West and North West Anglophone regions that has resulted in 
loss of life, restrictions on the freedoms of expression and peaceful 
assembly, and the detention of numerous peaceful demonstrators and 
journalists covering the events, many of whom are still awaiting trial. 
Reports of forced repatriation of thousands of Nigerian refugees 
fleeing Boko Haram, back to unsafe areas is likewise an issue of great 
concern. Also deeply troubling are allegations that Cameroonian 
security forces tortured individuals thought to be linked to Boko 
Haram.
    If confirmed, I would continue to urge all parties to commit to 
dialogue in order to resolve the root causes of the conflict, and to 
find a mutually acceptable, peaceful resolution that will ensure 
Cameroon's long-term stability. I will continue to call for the release 
from detention peaceful protesters and political prisoners, and to 
press the government to respect human rights and fundamental freedoms, 
including freedom of expression and peaceful assembly.
    I will directly engage senior Cameroonian government officials on 
upholding refugee protection within the country in accordance with 
international norms and ensuring that any refugee returns are voluntary 
and conducted safely, and with dignity. I will make the case that 
defeating terrorism in the long-term is possible only when security 
forces respect human rights and gain the trust of civilians. Torture is 
not acceptable under any circumstances, and I will insist that 
Cameroonian authorities fully investigate credible allegations that its 
security forces or law enforcement personnel have engaged in torture.
    If confirmed, I am also committed to working with the Cameroonian 
people and government to increase political space and democratic 
participation, including among women and young people, to advance civil 
and political rights. With presidential elections scheduled for 2018, 
promoting democracy, human rights, freedom of expression and peaceful 
assembly, and the rule of law will be among my highest priorities.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Cameroon in advancing human rights, civil society and democracy in 
general?

    Answer. In spite of challenges, Cameroon has achieved considerable 
progress since its independence. If confirmed, I will seek to help 
build on that progress. Looking forward, the Government of Cameroon 
stands a much greater chance of success when it respects human rights, 
and when it has the trust of the people. Good governance is the single 
most important factor in the success or failure of any nation, and the 
ends do not justify all means. I will work with the government, the 
people of Cameroon, and our international partners to ensure that 
elections in 2018 are free, fair, and credible, as well as peaceful.
    I will, if confirmed, encourage the government to release peaceful 
protesters and journalists detained in connection with the protests in 
the Anglophone regions, and urge all parties to commit to dialogue. In 
addition, I will continue to engage the Government of Cameroon to 
uphold its commitments in implementing the Tripartite Agreement with 
Nigeria and the UN High Commissioner for Refugees on the treatment of 
Nigerian refugees.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Republic of Cameroon? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Yes, if confirmed as Ambassador, I will meet with U.S.-
based human rights, civil society and other non-governmental 
organizations, and with local and international human rights NGOs in 
Cameroon. I will encourage the Cameroonian government to engage with 
these groups in order to open political space and to encourage the 
participation of civil society, particularly in the run-up to the 2018 
Presidential elections. It is important to make the case that engaging 
with and hearing the views of individuals from these organizations will 
go a long way toward demonstrating that the Government of Cameroon is 
serious about human rights.
    The United States values Cameroon as a key partner in combating 
Boko Haram and its offshoot, ISIS-West Africa, in the Lake Chad Region. 
If confirmed, I will work closely with AFRICOM, and senior Cameroonian 
military officials to ensure that, in accordance with the Leahy Law, 
the United States does not furnish foreign assistance to any 
Cameroonian security force unit if the Secretary of State has credible 
evidence that such a unit has committed a gross violation of human 
rights. I will also continue to fully support the participation of 
appropriately vetted candidates in AFRICOM's International Military 
Education and Training (IMET) Expanded IMET (E-IMET) courses, which 
provide instruction in military law and justice, human rights, and the 
Law of Armed Conflict (LOAC) as a means to interconnect military 
education and the importance of respect for human rights.

    Question 5. Will you and your embassy team actively engage with the 
Republic of Cameroon to address cases of key political prisoners or 
persons otherwise unjustly targeted by the Republic of Cameroon?

    Answer. Yes, if confirmed, my team and I will continue the 
Embassy's long-standing policy of advocating for key political 
prisoners and individuals unjustly targeted. I am particularly 
concerned about cases in which targeted individuals or organizations 
that expressed views at odds with government policy are arbitrarily 
detained, as highlighted in the U.S. Department of State's annual 
Country Reports on Human Rights Practices.
    If confirmed, I will advocate for respect for human rights and 
fundamental freedoms, including freedom of expression and peaceful 
assembly, in accordance with Cameroon's constitution and its 
commitments and obligations under international law.

    Question 6. Will you engage with the Republic of Cameroon on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. If confirmed, I will make the promotion of human rights, 
civil rights, and democracy, a key priority, and will ensure these 
issues are raised directly with senior officials of the government of 
Cameroon.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Republic of Cameroon?

    Answer. No. I have not had any material changes to my financial 
assets, income, or any other information requested by the Office of 
Government Ethics financial disclosure form since the date I signed it.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As Deputy Chief of Mission in Bamako, Mali from 2009-2012 
and in leadership positions in the Africa Bureau from 2013 to the 
present, I have made consistent and sustained efforts to increase 
diversity and nurture people from different backgrounds. Over the 
years, I have mentored and remain in close contact with entry level 
officers from diverse backgrounds through the State Department's formal 
mentoring program and have informally mentored other Foreign Service 
and civil service officers from diverse backgrounds and gender over the 
years.
    First as Acting Principal Deputy Assistant Secretary, and then as 
Senior Official in the Bureau of African Affairs, I was responsible for 
making recommendations for Chief of Mission and Deputy Chief of Mission 
assignments, and ensured that diversity and gender were reflected on 
the short lists of candidates whenever possible.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. I will make diversity and inclusivity elements of the work 
requirements of all supervisors at the Embassy, including locally 
employed staff, and hold them accountable, just as I do with other 
standards of performance. I will speak regularly to the value of 
diversity and gender inclusivity and lead by example through my own 
behavior.
Security Assistance
    Question 12. How much money has the United States provided to 
Cameroon in each of the past four fiscal years from both bilateral and 
regional accounts?

    Answer. From FY 2014-FY 2017, the United States Congress obligated 
$85.349M in security assistance funding for Foreign Military Financing 
(FMF), International Military Education and Training (IMET), and 
Peacekeeping Operations (PKO) to support military professionalization, 
counterterrorism, peacekeeping, maritime security, and counter-poaching 
efforts.

   Breakdown per Year

      <all>  FY 2014--$13.014M was obligated for Cameroon in IMET and 
            PKO to support military professionalization, peacekeeping, 
            and counter-poaching efforts.
      <all>  FY 2015--$31.305M was obligated in FMF, IMET and PKO to 
            support military professionalization, counterterrorism 
            efforts, maritime security, and peacekeeping.
      <all>  FY 2016--$7.503M was obligated in FMF, IMET and PKO to 
            support military professionalization, counterterrorism 
            efforts, maritime security, and peacekeeping.
      <all>  FY 2017--$33.527M was obligated in FMF, IMET and PKO to 
            support military professionalization, counterterrorism 
            efforts, maritime security, and peacekeeping.

    While Cameroon does not receive bilateral International Narcotics 
Control and Law Enforcement (INCLE) funds for civilian security 
assistance, Cameroon has benefited from the centrally managed INCLE 
funds for the period of FY 2014--FY 2017.

   Breakdown per Year:

      <all>  FY 2014--$915,000
      <all>  FY 15--$1,034,000
      <all>  FY 2016--$1,362,000
      <all>  FY 2017--$1,490,000 (estimated)

    Question 13. What is the status of AFRICOM's inquiry into whether 
or not American soldiers were aware of torture and abuses being carried 
out by Cameroonian soldiers?

    Answer. A preliminary inquiry, directed by the Commander, Special 
Operations Command Africa (Forward), found no evidence that U.S. forces 
observed or received reports of the law of armed conflict (LOAC) 
violations allegedly committed by partner forces in Cameroon.
    Nevertheless, after reviewing the findings of the preliminary 
inquiry, the Commander of U.S. Africa Command (US AFRICOM) appointed a 
general officer, assisted by various subject matter experts, to further 
investigate the extent to which U.S. forces had engaged with 
Cameroonian forces who were alleged to have committed LOAC violations. 
The investigation is examining the human rights and LOAC training 
received by U.S. forces prior to deploying, as well as any training 
provided by U.S. forces to Cameroonian forces. The investigation will 
make recommendations on the actions that the Department of Defense 
should take moving forward.

    Question 14. Will the results of this inquiry be provided to 
Congress?

    Answer. The provision of the results of the inquiry will be 
determined by AFRICOM.

    Question 15. How will you, if confirmed as Ambassador, effectively 
message that the United States does not tolerate human rights abuses by 
the Cameroonian military?

    Answer. If confirmed, I will reiterate to the Cameroonian 
Government that the United States takes gross human rights abuse 
allegations seriously and, in accordance with the Leahy Law, does not 
furnish assistance to any security force unit if the Secretary of State 
has credible information that such a unit has committed a gross 
violation of human rights.
    I will urge Cameroon to uphold its commitments and obligations 
under international law. All allegations and reports of torture and 
abuses must be fully investigated in a transparent manner. If 
warranted, the perpetrators must be prosecuted and punished in order to 
meet those commitments.
    We value Cameroon's partnership in combating terrorism. And as a 
valued partner in this fight, it is necessary to underscore that the 
strong partnership between the United States and Cameroon is not 
sustainable if Cameroonian security forces show a pattern of human 
rights abuses in the fight against terrorism.

    Question 16. The State Department has ranked Cameroon "Tier 2 
Watchlist" on trafficking in persons. If confirmed, what types of U.S. 
diplomatic efforts and aid, if any, would you pursue to help Cameroon 
better tackle this problem?

    Answer. The Government of Cameroon does not fully meet the minimum 
standards for the elimination of trafficking in persons; however, it is 
making significant efforts to do so. There are several lines of 
diplomatic effort I will pursue, if confirmed, to encourage the 
Government of Cameroon to improve on its current Tier 2 Watchlist 
ranking.
    I will urge the Government of Cameroon to increase efforts to 
investigate, prosecute, and convict traffickers for all forms of 
trafficking-including complicit officials and cases referred by NGOs-
under the trafficking section of the penal code. I will also encourage 
Cameroon to provide repatriation assistance, including travel 
documents, to Cameroonian trafficking victims identified abroad, expand 
trafficking-specific services for all victims, and increase 
collaboration with NGOs on identifying and protecting victims and 
raising awareness of trafficking.
    Additionally, I will work with the Government of Cameroon to 
encourage efforts to protect Cameroonian women who are recruited to 
work abroad, especially in exploitative situations in the Middle East, 
by encouraging the active regulation and investigation of labor 
recruiters and the provision of pre-departure information to citizens 
on their rights as foreign workers.

    Question 17. In what ways might such efforts be incorporated into 
existing U.S. programs that aim to help strengthen Cameroon's security 
sector and the rule of law?

    Answer. If confirmed, I believe that there is an opportunity 
through AFRICOM to amplify an anti-trafficking message in their work 
with the Cameroon Armed Forces, specifically the Gendarmerie. As 
precedence, in 2016, U.S. Marines and Sailors worked with Cameroonian 
counterparts to increase their capabilities to combat illicit activity 
and improve maritime security. In accordance with the Leahy Law, the 
Department of State has the ability to train and increase the capacity 
of Cameroonian security forces so that they are more representative of 
and accountable to the communities they serve. In addition, the Defense 
Institute for International Legal Studies (DIILS) provides our foreign 
partners with professional development in the investigation and 
prosecution of criminal activity within the military. AFRICOM works 
closely with DIILS to sponsor numerous training events and workshops 
each year.
    If confirmed, I would work closely with the Department of Justice 
Office of Overseas Prosecutorial Development, Assistance, and Training 
(OPDAT), which works specifically with partner governments to increase 
the effectiveness of their rule of law institutions. Such programs 
would help strengthen the country's judicial capacity to investigate 
and prosecute these crimes in a transparent and credible manner.



                               __________


      Responses to Additional Questions for the Record Submitted 
           to Eric P. Whitaker by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my Foreign Service career I have supported 
democracy and human rights, including promoting civil liberties, civil 
society, anti-trafficking in persons, and freedom of religious belief 
and practice. This has included serving as an election observer in 
Ethiopia, co-hosting civil society conflict prevention roundtables in 
Niger, promoting civic and voter education in Mali, and working with 
district advisory councils to improve local human services in Iraq.

    Question 2. What are the most pressing human rights issues in the 
Republic of Niger? What are the most important steps you expect to 
take--if confirmed--to promote human rights and democracy in the 
Republic of Niger? What do you hope to accomplish through these 
actions?

    Answer. The most serious human rights problems include attacks by 
armed groups that resulted in death, disappearances, and abuse; harsh 
and life-threatening prison and detention center conditions; 
trafficking in persons, including forced labor and caste-based slavery; 
and restrictions on freedom of expression and assembly.
    The United States government is concerned by a troubling trend in 
the past few years of Nigerien authorities arresting and threatening 
critics of the government in a series of what regime opponents and 
human rights organizations deem as politically driven actions. 
Political activists and journalists use language on social media 
perceived by the government as provocative or overly critical, 
including sometimes calling for regime change. Rather than acknowledge 
the right of freedom of speech, the Nigerien authorities frequently 
react using diverse and in many cases concerning tactics, ranging from 
temporarily detaining individuals for questioning, months-long 
detentions with threat of imprisonment, and in a few cases, convictions 
with suspended sentences.
    If confirmed, I will continue to implement and champion programs 
and funding to combat violations of human rights and civil liberties, 
and expand respect for fundamental freedoms in Niger. I will engage 
proactively with human rights, civil society, and other non-
governmental organizations. I will speak out in the media. I will 
encourage the Nigerien Government to seek input from a broad range of 
viewpoints, including civil society. I will be vigilant to ensure that 
our security cooperation is never misused to restrict the rights of the 
Nigerien people, and that, in accordance with the Leahy law, units 
which have committed human rights violations do not receive U.S. 
training. I will also forcefully advocate for the protection and 
defense of human rights. I will press the Nigerien government to adhere 
to its own cconstitution and laws, and to hold accountable violators of 
those laws.
    Through these actions, if confirmed, I will seek to reinforce with 
both the Government of Niger and the Nigerien public the strong stance 
of the U.S. government with respect to democratic progress and respect 
for human rights, including media freedoms, space for civil society 
actions, and political space for all political parties. This support 
will extend to judicial practices so as to minimize pre-trial 
detention, improve penal conditions, and improve the treatment of those 
in custody by law enforcement officials. Furthermore, I will seek to 
advocate against any abuses by security forces against civilians, 
infringements of labor rights, and exploitation of any element of the 
Nigerien public, to include slavery or servitude.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the Republic of 
Niger in advancing human rights, civil society, and democracy in 
general?

    Answer. There are many obstacles to improving the human rights 
situation in Niger. Niger's armed forces are not numerous enough and 
lack sufficient resources to protect all of Niger's citizens from being 
victimized by violent extremists. Nigerien prisons are critically 
underfunded, and as a result, conditions are dire. Nigerien law 
enforcement officials lack sufficient training on the importance of 
respecting fundamental freedoms, and accountability mechanisms to deter 
violations are not in place; as a result, these freedoms are 
occasionally violated.
    In Niger's prisons, nutrition, sanitation, potable water, and 
medical care are poor. National Guard troops have acted as untrained 
prison guards, but a new training institute has been established, and 
prison officials at all levels are enrolled. Recordkeeping on prisoners 
is inadequate. There are no official penal or judicial alternatives to 
incarceration for nonviolent offenders. Some Nigerien law enforcement 
officials have violated Nigeriens' freedom of expression and freedom 
from arbitrary detention in order to counter what the government 
perceives as threats to public safety.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in the Republic of Niger? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Yes, if confirmed as Ambassador, I will proactively engage 
with human rights, civil society, and other non-governmental 
organizations. I will encourage the Nigerien government to seek input 
from a broad range of viewpoints, including civil society. I will also 
vigorously advocate for the protection and defense of human rights.
    If confirmed, I will make certain the Embassy continues to 
rigorously implement Leahy requirements to ensure that recipients of 
U.S. security assistance are subject to human rights vetting and that 
security cooperation activities, including pre-deployment training for 
Nigerien peacekeepers in Mali under the Africa Contingency Operations 
Training and Assistance (ACOTA) program, include human rights training 
to reduce the risk of human rights abuses in peacekeeping operations in 
which Niger participates. I will do the same for rule of law programs 
with the police. I will be vigilant to ensure that our security 
cooperation is never misused to restrict the rights of the Nigerien 
people, and that units which have committed human rights violations do 
not receive U.S. training.

    Question 5. Will you and your embassy team actively engage with the 
Republic of Niger to address cases of key political prisoners or 
persons otherwise unjustly targeted by Niger?

    Answer. If confirmed, my team and I will work hard to ensure that 
the rule of law is respected in Niger, including the Nigerien 
Constitution, which guarantees basic human rights.
    If confirmed as Ambassador, I will continue to advocate for the 
respect of fundamental freedoms to include the freedom of speech and 
peaceful assembly, and advocate for persons unjustly detained by the 
government.

    Question 6. Will you engage with the Republic of Niger on matters 
of human rights, civil rights, and governance as part of your bilateral 
mission?

    Answer. If confirmed, I would consider human rights and democracy 
advocacy to be a fundamental part of my job and will regularly engage 
with the Nigerien government on these issues. I will make support for 
human rights, civil rights, and good governance key elements of my 
engagement with the Nigerien government across the full range of 
issues. Niger stands to benefit greatly in all areas when its people 
are empowered, free to express their views and engage their government 
without fear of retribution, and have trust in the rule of law.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Republic of Niger?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a Foreign Service officer who has served with diverse 
teams throughout my career, I strongly believe in the value of 
workplace diversity. If confirmed, I will ensure that the U.S. Embassy 
in Niamey has active and accessible Equal Employment Opportunity (EEO) 
and Federal Women's Program (FWP) operations, programs, and outreach, 
and will ensure that EEO and FWP counselors are trained and afforded 
time at the workplace to perform their duties. I will ensure the 
embassy has a structured mentorship program and that each member of the 
embassy team has opportunities for personal growth and professional 
success. I will include staff from diverse backgrounds and 
underrepresented groups in activities, committees and boards, working 
groups, visitor hosting, field travel, and other developmental 
assignments. I will also hold sessions to listen to their feedback 
regarding the mission and its undertakings.
    Furthermore, in my own behavior, I will model a strong commitment 
to diversity and inclusion. I will ensure that the employee evaluation 
process is rigorously followed, including formal and documented 
counseling sessions throughout each performance period, so that 
employees receive timely and constructive feedback on their performance 
and have structured opportunities to raise with their supervisors any 
workplace concerns or impediments to success.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will speak publicly, including in Town Hall 
and Country Team meetings, on a regular basis regarding my commitment 
to diversity and inclusion, and underscore my expectations that all 
embassy team members will experience and sustain an inclusive and 
supportive workplace. I will require all supervisors to promote an 
inclusive, supportive, and ethical workplace, and will emphasize the 
importance of diversity and inclusion in my oversight of section and 
agency heads as well as in orientation and training sessions. I will 
encourage that the performance evaluations of all supervisors comment 
on the supervisor's success in valuing diversity and promoting 
inclusion, and will recognize and commend efforts among supervisors to 
value diversity and foster inclusion. I will ensure that supervisors 
are cognizant of EEO principles and rules, and held accountable for 
respecting them. I will ensure prompt engagement, and corrective action 
when warranted, on any expressions of concern that the embassy 
workplace does not value diversity or promote inclusion.

    Question 12. According to a report in the New York Times last 
month, the administration is considering new rules for drone strikes 
and raids that may well affect operations in Niger.

   What rules currently govern who is targeted drone strikes, and is 
        that rule in fact going to be relaxed? Should we expect to see 
        more strikes in Niger? Will such strikes be vetted and approved 
        at the same levels within our government that they were in the 
        Obama administration? Will rules governing ``commando raids 
        outside conventional battlefield.'' as the article suggest be 
        changed?

    Answer. The United States bases and operates MQ9 unmanned aerial 
vehicles from Niamey, Niger. In close coordination with the government 
of Niger, U.S. Air Force Africa (AFAFRICA) supports a range of security 
missions. This effort promotes regional stability in support of U.S. 
diplomacy and national security, and strengthens relationships with 
regional leaders committed to security and prosperity. The United 
States has not armed any of these drones, so there are no strikes. I 
must defer to the Department of Defense for more specifics regarding 
this program.

    Question 13. How much money have we provided to Niger in each of 
the past four fiscal years in security assistance from all sources? 
What are the primary accounts and programs through which we have 
provided such assistance?

    Answer. During Fiscal Years 2013-2016, the United States provided 
nearly $90 million in funding for security assistance to Niger. This 
amount includes funding from Foreign Military Financing (FMF), 
International Military Education and Training (IMET), Nonproliferation, 
Antiterrorism, Demining and related programs (NADR), counter-terrorism 
(TSCTP) the Global Security Contingency Fund (GSCF), and Peacekeeping 
Operation Funds.
    In FY 2016, we provided $34.5 million; in FY 2015 $28.2 million; in 
FY 2014 $9.7 million; and in FY 2013, $18 million in security 
assistance to Niger.

    Question 14. What are the current proposals for funding the ``G-5 
Sahe.'' (a grouping of Mauritania, Mali, Niger, Chad, and Burkina Faso) 
under discussion in the Security Council?

    Answer. Some G-5 member states and France have attempted to 
persuade the U.N. Security Council to authorize the deployment of the 
G-5 Joint Force, under Chapter VII of the U.N. Charter.

    Question 15. What is the United States position on how the G-5 
should be funded and what international partners should contribute?

    Answer. The United States applauds the increased leadership that 
regional organizations have demonstrated and strongly supports the 
efforts of the G-5 Sahel countries to bolster regional security. The G-
5 Sahel Joint Force represents a concrete opportunity to leverage 
resources to solve problems. The United States will continue to support 
the G-5 through flexible bilateral and regional support, which have 
proven the most pragmatic in the Sahel. Since 2012, the Department of 
State has provided over $600 million in security assistance to G-5 
countries. Since February 2013, the United States has also provided $95 
million in logistics support for French stabilization and operations to 
counter violent extremism in the Sahel.
    Many donor nations have pledged support intended for the G-5 Sahel 
Joint Force. The European Union has pledged 50 million euros, to be 
disbursed through a French parastatal. Each of the five G-5 countries--
Niger, Mali, Burkina Faso, Mauritania, and Chad, has pledged 10 million 
euros, as well as a minimum of one battalion of the troops and law 
enforcement personnel who will constitute the force. France has pledged 
to pay eight million euros by the end of 2017, and will donate 
helicopters to Niger by 2019. France is currently providing military 
staff support to Mauritania. Germany has pledged to provide ambulances, 
water tank trucks, construction, training, and mobility support.

    Question 16. Freedom House's 2017 report stated that, ``Niger's 
political rights rating declined from 3 to 4 due to the repressive 
conditions surrounding the 2016 presidential and legislative elections, 
including harassment of the opposition, as well as alleged 
irregularities in the balloting itself.'' The report goes on to say 
that the ``struggle to meet the security challenges that surround Niger 
has served as an alibi for the government to restrict freedoms and 
civil liberties.''

   What assistance have we provided to Niger over the past four fiscal 
        years to support democracy and human rights?

    Answer. From FY 2014--FY 2017, the United States provided 
approximately $9 million in bilateral foreign assistance to support 
democracy, governance, and human rights activities in Niger. In 
addition to the bilateral funding, Niger has also received 
approximately $40.5 million in resilience programming between FY 2014 
and FY 2017 from USAID's West Africa Regional Mission, which supports 
programming in Niger for health and family planning, environment, 
agriculture, trade, and peace and governance, including countering 
violent extremism.

    Question 17. How will you, if confirmed as Ambassador, ensure that 
the government in Niger understands that security challenges should not 
serve as an excuse to restrict freedoms and civil liberties?

    Answer. If confirmed, I would ensure that my messaging, both public 
and private, to the government and people of Niger would underscore the 
importance that the U.S. government attaches to the promotion of 
democracy, respect for human rights, support for effective and 
accountable government, and the maintenance of open political space 
with freedom to express peacefully views critical of the government. 
These elements all work to support long-term stability and deepen 
Niger's democratic consolidation. Furthermore, the embassy's public 
diplomacy, high-level visits, field trips, and programming would 
continuously accentuate the importance of democratic freedoms and civil 
liberties to a vibrant democracy that serves as a foundation for 
Niger's development.
    Our Embassy has set up a press freedom working group to highlight 
concerns that protection of democratic institutions and civil liberties 
is critical to our partnership. We aim to advocate for, and effect 
actions that result in, easing of journalist harassment and safe 
platforms for those with opposing views. If confirmed, I look forward 
to continuing the activities of this working group in order to promote 
greater freedom of expression for all Nigeriens.
    If confirmed, I will make certain the embassy continues to 
rigorously implement Leahy requirements to ensure that recipients of 
U.S. security assistance are subject to human rights vetting. 
Furthermore, I will require that security cooperation activities, 
including pre-deployment training to Nigerien peacekeepers in Mali 
under the Africa Contingency Operations Training and Assistance (ACOTA) 
program, include specific human rights training to reduce the risk of 
human rights abuses in peacekeeping operations in which Niger 
participates. I will do the same for rule of law programs with the 
police. I will be vigilant to ensure that our security cooperation is 
never misused to restrict the rights of the Nigerien people, and that 
units which have committed human rights violations do not receive U.S. 
training.
    The U.S. Mission in Niger is working on two levels to improve good 
governance. At the local level, we support multi-stakeholder dialogues, 
planning, budgeting, and joint action to identify and address citizen 
needs. At the national level, we support priority policy reform, 
including improvements to the Electoral Law, Young Girl Education and 
Protection Law, and Future Generations Law. We also continue to 
strengthen the capacity of the legislative branch, media, civil 
society, and other actors to fulfill their critical roles in society, 
increase public dialogue, and serve as a check and balance on the 
executive. If confirmed, I will continue to implement and champion 
similarly effective programs and funding to combat violations of human 
rights and civil liberties, and expand respect for fundamental freedoms 
in Niger.



                               __________


      Responses to Additional Questions for the Record Submitted 
           to Michael J. Dodman by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting respect for human rights and democracy has been a 
priority in each of my Foreign Service assignments. The following 
examples are among my most significant actions, drawn from two very 
different posts.
    As Consul General in Karachi, one of my top priorities was 
fostering dialogue among religious groups, both to build respect and 
tolerance for religious freedom, and to promote conditions conducive to 
a more democratic, stable, and prosperous society. I met regularly with 
religious leaders of all faiths, including direct outreach to students 
in madrasas, and established the Consul General's residence as a space 
for regular interfaith discussions. I directed that the beneficiaries 
of any assistance programs in our consular district include 
representatives from Pakistan's many religious and ethnic minorities. 
Likewise, I ensured that women and girls benefited from our assistance 
programs, and were represented in all of our public diplomacy programs. 
The Consulate team and I developed a close partnership with the 
country's leading philanthropist, and together we hosted a series of 
educational sessions and social events for residents of the city's 
largest orphanage for girls. Finally, I made sure that the U.S. 
Consulate was widely recognized as a model employer in the region, 
where qualified employees were hired and promoted regardless of gender, 
religion, ethnicity, or social status. For instance, during my time in 
Karachi, we expanded the number of women hired as security guards. As 
the public face of our compound, this sent a visible signal to the city 
about U.S. values and equal employment opportunity.
    As Political Counselor in Prague, my team and I exposed details 
regarding the plight of around 100 North Koreans working at a factory 
in the Czech Republic in conditions of forced labor. We assessed the 
scale of the workforce and their working conditions, providing the 
State Department with details and recommendations. We made a clear and 
compelling case to the Czech Government to intervene on behalf of the 
workers. The Government promptly responded, forcing the firm to end its 
contract with the North Korean government. The Czechs also put in place 
procedures that prevented future contracts with the North Korean 
regime.

    Question 2. What are the most pressing human rights issues in 
Mauritania? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Mauritania? What do 
you hope to accomplish through these actions?

    Answer. The most serious human rights concern in Mauritania is 
slavery. The elimination of slavery everywhere is long past due, but 
doing so in Mauritania has been particularly difficult. While 
Mauritanian law prohibits slavery, the Government has rarely prosecuted 
alleged slaveholders. and efforts to enforce anti-slavery legislation 
have been insufficient. If confirmed, I will seek to engage the 
Government of Mauritania in a partnership to fight slavery, and other 
forms of human trafficking, and identify and provide protective 
assistance, social services, and skills training to former slaves. If 
confirmed, I will seek to increase the capacity of civil society to 
support the reintegration of marginalized groups, including former 
slaves, and improve their access to justice. I will work to provide 
U.S. training to police, prosecutors, and judges to address the 
challenges of investigating and trying human trafficking cases.
    Other human rights problems include incarceration of children with 
adult prisoners, government influence over the judiciary, arbitrary 
limits on freedom of assembly, public corruption, and restrictions on 
religious freedom. The constitution dictates that only Muslims may be 
citizens. Other reported human rights abuses included gender-based 
violence against women and girls; discrimination against women; female 
genital mutilation/cutting (FGM/C); early and forced marriage; 
political marginalization of sub-Saharan (non-Arab) ethnic groups and 
of the Arab Haratine caste of slave descendants; racial and ethnic 
discrimination; discrimination against lesbian, gay, bisexual, 
transgender, and intersex (LGBTI) persons and persons with HIV/AIDS; 
child labor; and inadequate and selective arbitrary enforcement of 
laws, including labor laws.
    If confirmed, I will also continue to underscore that Mauritania's 
eligibility for trade benefits under the Africa Growth and Opportunity 
Act (AGOA) will require continued progress on AGOA eligibility 
criteria, including those related to human rights and labor rights. As 
Mauritania strives to expand our trade and investment relationship, we 
should leverage AGOA eligibility criteria to encourage greater progress 
in combatting slavery, holding slaveholders accountable, protecting 
worker rights, and ensuring civil society organizations, including 
anti-slavery NGOs, are able to do their work without threats or 
intimidation from the government.
    Through steady engagement with the Mauritanian Government and civil 
society, I hope to affect real progress towards the goal of a more 
just, inclusive, and free Mauritanian society.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mauritania in 
advancing human rights, civil society, and democracy in general?

    Answer. The three courts set up to hear slavery and human 
trafficking cases are understaffed, underfunded and generally lack 
political support from the central government. Tadamoun, the Government 
agency mandated to address poverty and the ``vestiges of slavery,'' 
does not fulfill its role to submit criminal cases on behalf of victims 
and represent victims in cases against their alleged traffickers or 
slaveholders. Government agencies charged with combating trafficking 
and slavery continue to lack the resources, personnel, and political 
will to prosecute politically connected offenders, and there remains a 
fundamental lack of commitment to make serious and sustained efforts to 
combat hereditary slavery. Many senior government officials, like many 
Mauritanian citizens, downplay or deny the continued existence of 
slavery. However, we know that significant work remains to be done if 
slavery is to be fully abolished from the country.
    The Government of Mauritania has taken many necessary steps to 
create laws and a judicial framework to address and correct human 
rights abuses, but a major obstacle is a failure to follow through and 
empower these new institutions to enforce the new laws. For example, in 
April 2016 the Government created the National Mechanism for Prevention 
of Torture (MNP) as an independent governmental body charged with 
investigating credible allegations of torture. Yet to date, the MNP has 
not launched a single investigation. A major challenge is in getting 
the Mauritanian Government to recognize that while it has made very 
modest progress in combating slavery, the international community 
strongly feels the Government is doing enough in this realm.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mauritania? If confirmed, what steps will 
you take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. If confirmed, I will meet regularly with human rights, 
civil society, and other non-governmental organizations. The U.S. 
Embassy in Nouakchott has a strong record in this area, and I intend to 
maintain this focus.
    If confirmed, I will make certain the Embassy continues to 
rigorously implement Leahy requirements to ensure that recipients of 
U.S. security assistance are subject to human rights vetting and that 
security cooperation activities, including pre-deployment training for 
Mauritanian peacekeepers in the Central African Republic under the 
Africa Contingency Operations Training and Assistance (ACOTA) program, 
include specific human rights training to reduce the risk of human 
rights abuses in peacekeeping operations in which Mauritania 
participates. I will do the same for rule of law programs with the 
police. I will be vigilant to ensure that our security cooperation is 
never misused to restrict the rights of the Mauritanian people, and 
that units which have committed human rights violations do not receive 
U.S. training.

    Question 5. Will you and your embassy team actively engage with 
Mauritania to address cases of key political prisoners or persons 
otherwise unjustly targeted by Mauritania?

    Answer. If confirmed, my team and I will make it a priority to 
press for the rule of law to be respected in Mauritania. I am concerned 
by reports of cases where these rights are infringed by violations of 
due process and political interference, including with regard to 
members of the political opposition and civil society. If confirmed, I 
will advocate for the respect of fundamental freedoms, including 
freedom of speech and peaceful assembly, and advocate for the release 
of persons detained unjustly.

    Question 6. Will you engage with Mauritania on matters of human 
rights, civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I would consider human rights and democracy 
advocacy to be a fundamental part of my job and the embassy's mission. 
I will make support for human rights, civil rights, and good governance 
key elements of my engagements with the Mauritanian government. 
Mauritania stands to benefit greatly when its people are empowered, 
free to express their views and engage their government without fear of 
retribution, and have trust in and the protection of the rule of law.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Mauritania?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am a strong supporter of career development and 
mentorship for all State Department and Foreign Service employees, and 
agree fully that diversity is essential to a well-function public 
service. Likewise, as the face of the United States abroad, it is 
essential that the Foreign Service represent America in all of its 
diversity.
    As Director of the State Department office managing the initial 
assignments of all Foreign Service personnel, I took special effort to 
make sure that participants in the Pickering and Rangel programs--the 
two programs that most directly recruit underrepresented groups in the 
Foreign Service--received assignments that would provide a firm basis 
for success in their Foreign Service careers. I have mentored and 
supported the applications to the Pickering and Rangel programs of 
several students from diverse backgrounds whom I have met through 
lectures and seminars I have led at local universities. In making 
hiring decisions for my own staff, and through my participation on the 
State Department committee that selects Principal Officers and 
candidates for Deputy Chief of Mission positions, I have always 
emphasized the importance of diversity.
    Mentoring, career development, and respect for diversity are all 
personal core values, and I am confident that they will be front and 
center of my management of the U.S. Embassy in Nouakchott, if 
confirmed. In particular, given the challenges that Mauritania 
confronts in addressing ethnic and racial barriers, I intend to follow 
the practice I used successfully as Principal Officer in Karachi, 
Pakistan, of ensuring that the composition of our local staff fully 
reflects the diversity of the host nation.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. Most important is leading by example and setting the tone 
from the top that makes clear that our workplace will be one that 
embraces respect for everyone. If confirmed, I will highlight this in 
my first meeting with the country team, and in my first town hall with 
the full staff; it will be repeated in these settings at least 
annually, to make sure that newcomers understand my expectations. I 
will make diversity, tolerance, and respect for equal opportunity an 
element of each of my performance management discussions with my direct 
reports, and will take swift action to discipline staff who do not 
abide by these principles. Finally, I will ensure that all staff 
receive training on diversity and EEO rules and procedures.

    Question 12. What are the current proposals for funding the ``G-5 
Sahel" (a grouping of Mauritania, Mali, Niger, Chad, and Burkina Faso) 
under discussion in the Security Council?

    Answer. Some G-5 member states and France have attempted to 
persuade the U.N. Security Council to authorize the deployment of the 
G-5 Joint Force, under Chapter VII of the U.N. Charter.

    Question 13. What is the United States position on how the G-5 
should be funded and what international partners should contribute?

    Answer. The United States applauds the increased leadership that 
regional organizations have demonstrated and strongly supports the 
efforts of the G-5 Sahel countries to bolster regional security. The G-
5 Sahel joint force represents a concrete opportunity to leverage 
resources to solve problems. The United States supports the G-5 Sahel 
countries through flexible bilateral and regional support. Since 2012, 
the United States has provided over $600 million in security assistance 
to G-5 countries. Since February 2013, the United States has also 
provided $95 million in logistics support for French stabilization and 
operations to counter violent extremism in the Sahel.
    Many donor nations have pledged support intended for the G-5 Sahel 
Joint Force. The European Union has pledged 50 million euros, to be 
disbursed through a French parastatal. Each of the five G-5 countries--
Niger, Mali, Burkina Faso, Mauritania, and Chad, has pledged 10 million 
euros, as well as a minimum of one battalion of the troops and law 
enforcement who will constitute the force. France has pledged to pay 
eight million euros by the end of 2017, and will donate helicopters to 
Niger by 2019. France is currently providing military staff support to 
Mauritania. Germany has pledged to provide ambulances, water tank 
trucks, construction, training, and mobility support.

    Question 14. What will be your role in in terms of U.S. cooperation 
with the G-5 if confirmed as U.S. Ambassador to Mauritania given the 
``permanent secretariat'' is based in Nouakchott?

    Answer. I anticipate that the State Department will formally 
request that the G-5 Sahel Secretariat in Nouakchott recognize our U.S. 
Ambassador in Mauritania as the official U.S. diplomatic representative 
to the G-5 Sahel. Having our Ambassador to Mauritania designated as our 
diplomatic representative to the G-5 Sahel will give us deeper and more 
immediate information about and help shape our policy toward this 
regional organization that is emerging as a potentially influential 
force in West Africa.

    Question .15 Recent droughts, such as the 2011 Sahel-wide drought, 
have impacted the resilience and coping mechanisms of Mauritanian 
households. The presence of Malian refugees in host communities in 
Mauritania, like the 50,000 Malians in Mauritania's Mbera refugee camp, 
have also strained the country. What should the USG's approach be to 
improve the level of cooperation with international relief 
organizations providing food aid and refugee support?

    Answer. Though improving conditions in some parts of northern Mali 
have led some Malian refugees to return home, most refugees have been 
cautious, and only a small number have spontaneously returned to Mali 
from Mauritania. The Mauritanian Government is committed to hosting 
refugees despite its own challenges with food insecurity, and it has 
maintained open borders for refugees amidst security concerns. The 
Government works closely with the Office of the United Nations High 
Commissioner for Refugees (UNHCR) to protect and assist Malian 
refugees.
    The U.S. Government is a major multilateral donor that supports 
U.N. agencies such as the UNHCR, the World Food Program (WFP), and the 
United Nations International Children's Emergency Fund (UNICEF). We 
also support international and national non-governmental organizations 
(INGOs) to ensure that refugees have access to life-saving support. Our 
assistance also trains refugees and builds their skills in preparation 
for return to Mali. The good work that we accomplish through these 
organizations notwithstanding, we note a donor fatigue with regard to 
global assistance to the Malian refugees in the Mbera Camp. If 
confirmed, I will work with the Government of Mauritania to encourage 
it and other partners to take a greater role in assisting the refugees 
and in designing a sustainable exit strategy.

    Question 16. Mauritania is identified as a ``Tier 3" country in the 
2016 Trafficking in Persons Report, meaning it does not fully meet the 
minimum standards for the elimination of trafficking and is not making 
significant efforts to do so. In your estimation, does the Government 
have the political will to address human trafficking? If confirmed, 
what types of U.S. diplomatic efforts and assistance, if any, would you 
pursue to help Mauritania better tackle this problem?

    Answer. The Mauritanian Government has taken steps that shows it 
has some political will to address human trafficking, but the U.S. 
Government would like to see it take many more, and stronger, steps, 
and fully implement the commitments it has already announced.
    While Mauritanian law prohibits all forms of trafficking, including 
hereditary slavery, the Government has rarely prosecuted alleged 
traffickers or slaveholders, and efforts to enforce anti-slavery and 
anti-trafficking legislation have been otherwise insufficient. The 
Government has taken steps to increase public awareness of the 
prohibition of slavery and in 2013 established a national agency, 
Tadamoun, to address poverty and the ``vestiges of slavery;" however, 
this agency has primarily focused on general poverty-reduction efforts 
rather than specifically addressing slavery. In 2015, an anti-slavery 
law was passed following consultations with the United Nations, which 
strengthened the country's ability to prosecute all forms of human 
trafficking. The Supreme Judicial Council set up three courts in 2015 
and 2016, with an exclusive mandate to hear slavery and human 
trafficking cases. One of the courts has convicted two slaveholders, 
with the convictions upheld by the Court of Appeals. Despite some 
positive steps, the Government has not taken adequate steps to enforce 
its 2003 anti-trafficking nor its 2015 Anti-Slavery laws.
    The staff of the new anti-slavery courts have not received 
sufficient training or resources to produce the intended results in 
terms of convictions (only two to date, but several cases are in 
progress and others have been handled by civil compromise between the 
parties). In addition, judges and prosecutors must be trained further 
to support the referrals of trafficking and slavery cases to the anti-
trafficking courts, thereby facilitating victims' access to justice.
    One part of our encourage is to incentivize the Mauritanian 
Government to meet agreed-upon benchmarks in its efforts to combat 
slavery in order to maintain economic benefits under the African Growth 
and Opportunity Act (AGOA). Our Embassy in Nouakchott has taken 
measures to increase knowledge of AGOA benefits and eligibility 
criteria among Mauritanians, bringing an AGOA expert to Mauritania to 
meet with business leaders in Nouakchott and Nouadhibou. The Embassy 
worked with business leaders to establish the U.S.-Mauritania Business 
Forum to, among other purposes, persuade the Government to take actions 
to preserve access to AGOA benefits.
    If confirmed, I will engage the Government of Mauritania in a 
partnership to fight slavery and other forms of human trafficking, hold 
slaveholders to account, and identify and provide protective 
assistance, social services, and skills training to former slaves. I 
will also work along with the embassy staff to provide training for 
police, prosecutors, and judges to address the challenges of 
investigating and trying human trafficking cases.

    Question 17. Though laws have been passed criminalizing slavery in 
recent years, practice has been slow to change. What specific further 
actions will you take to support organizations attempting to address 
the issue of slavery in Mauritania, if confirmed?

    Answer. The State Department is funding a $1.6 million, three-year 
program focused on the eradication of slavery and full integration of 
people emerging from slavery into mainstream society. The objectives of 
the program are to provide skills, opportunities, and support for 310 
people emerging from slavery to achieve socio-economic independence and 
rights, including citizenship, and to strengthen the legal system and 
framework to identify and prosecute perpetrators of slavery. The 
project uses three mutually reinforcing strategies--supporting the 
socioeconomic empowerment of people emerging from slavery; ensuring 
that the authorities more rigorously identify and pursue the 
prosecution of slavery cases and compensate victims; and changing 
societal norms and attitudes towards slavery and its victims. This 
program includes sub-grants to two key partners: a leading anti-slavery 
non-government organization (NGO) in Mauritania and a legal 
organization which supports the NGO. DRL is funding a second program in 
Mauritania for $1.9 million over four-and-a-half years that supports 
the reintegration of marginalized groups, with a particular focus on 
improving their access to justice and promoting access to legal 
identity documents.
    Mauritania is also part of the $1 million Department of Labor-
funded global BRIDGE project, which will contribute to the Mauritanian 
government's efforts to eliminate all forms of slavery and to provide 
protection and remedies to victims.
    The Department of State is increasing the capacity of civil society 
to support the reintegration of marginalized groups, including former 
slaves, and improve their access to justice. If confirmed, I will 
remain in close communication and share information with local and 
international NGOs whose mission is to publicize and combat slavery and 
human trafficking. Whenever possible, and when a visit by such a group 
would not interfere in any way with U.S. foreign policy, the embassy 
staff and I will welcome international NGOs to Mauritania and seek to 
facilitate meetings for them with both government and private 
officials, so that they may more effectively promote our shared goals 
of ending slavery and human trafficking.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Nina Fite by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career in the Foreign Service, I have sought 
to promote human rights and democracy. During my three years as 
Principal Officer in Lahore, Pakistan, I focused on increasing business 
and entrepreneurial training and opportunities for women through the 
U.S.-Pakistan Women's Business Council, enlisting Pakistani companies 
and business executives to commit to providing internships. In my tour 
in Afghanistan, I also worked extensively with programs to support 
business education and training for women.
    In Pakistan, I emphasized religious tolerance through public visits 
to places of worship of all religions represented in my consular 
district. I championed tolerance with government officials, 
particularly with regard to several high-profile cases. I used a 
television appearance, which reached more than 30 million viewers, to 
talk about religious tolerance in the United States. In Pakistan, as 
during my previous tour in Angola, I met regularly with human rights 
groups, provided them access to high-level visitors, and ensured they 
were represented in our International Visitor Leadership Program. I 
lobbied the respective governments on human rights cases and the 
importance of following international standards in their treatment of 
human rights activists.
    During the run-up to Angola's 2008 elections, I led our Political 
and Economic section in close cooperation with USAID-funded democracy 
programming to train election officials and citizens on democratic 
elections and voting. In Pakistan, during the 2013 elections, I 
directed the Consulate team in our election monitoring efforts, 
incorporating visiting U.S. election monitors. Our observations and 
reporting contributed directly to the U.S. government's and 
international community's evaluation of the election process.
    As Principal Officer in Montreal, Canada, I highlighted Native 
American culture and achievements by arranging for the first Native 
American federal judge to speak directly to Canadian First Nation 
members in our consular district. For our 2017 national day 
celebration, we highlighted Native American culture, including a 
performance by a Hopi dance troupe, which we sponsored in Montreal. 
Throughout my tenure in Montreal, our Consulate promoted LGBTQ rights 
by operating a booth during the Pride Community Days and marching in 
the annual parade, the only Consulate in Montreal to do so. We used 
public diplomacy programming to support the Montreal Black Film 
Festival, and I hosted a lunch at my residence for Martin Luther King 
III with NGO representatives and city dignitaries.
    Throughout my career, I have used my convening power to bring 
together representatives of religious and ethnic minorities, political 
parties, NGOs, and women to promote U.S. policy and tolerance.

    Question 2. What are the most pressing human rights issues in 
Angola? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Angola? What do you 
hope to accomplish through these actions?

    Answer. The 2016 Human Rights Report notes instances of cruel, 
excessive, and degrading punishment, including reported cases of 
torture and beatings; limits on freedoms of assembly, association, 
speech, and press; and official corruption and impunity. Issues like 
these show how important it is for us to sustain high-level dialogue 
with governments on these issues, seek opportunities to promote civil 
society, and use public engagement opportunities to expand democratic 
space. If confirmed, I would make full use of such engagement to seek 
both resolution in individual cases and to address systemic issues.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Angola in advancing 
human rights, civil society, and democracy in general?

    Answer. The 2016 Human Rights Report notes several potential 
obstacles to progress on human rights issues, including the 
government's obstruction of opposition parties' exercise of their right 
to meet. It also notes restrictions on the operation of civil society, 
such as 2015 regulations on NGOs, which civil society criticizes as 
potentially restrictive and intrusive.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Angola? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights, civil society, 
and other non-governmental organizations. If confirmed, I will 
strengthen U.S. efforts to work with the Government of Angola, as well 
as non-governmental organizations, to improve human rights conditions 
in Angola. I will also ensure that my staff fully implements and 
complies with the Leahy Law and similar efforts.

    Question 5. Will you and your embassy team actively engage with 
Angola to address cases of key political prisoners or persons otherwise 
unjustly targeted by Angola?

    Answer. Members of Congress and the State Department have spoken 
publically in support of human rights defenders in Angola. If 
confirmed, I would continue to press these issues and include them 
prominently in our engagement.

    Question 6. Will you engage with Angola on matters of human rights, 
civil rights and governance as part of your bilateral mission?

    Answer. In 2010, the United States created a Strategic Partnership 
with Angola, agreeing to hold high-level diplomatic meetings on a 
regular basis, as well as separate meetings on specific issues, 
including human rights. If confirmed, I will continue to strengthen our 
work on these issues and ensure we include human rights issues 
prominently in our engagement with Angola.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Angola?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor, and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a leader and manager in several diplomatic posts, I know 
that diversity enriches our work, as it does the United States as a 
whole. If confirmed, I will use the diversity of my staff to benefit 
all at the Mission, while promoting a range of backgrounds and 
perspectives in the individuals whom I review for future positions.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that everyone on my team is 
treated professionally, that their rights are respected, that they are 
safe, and that they have the resources they need to perform their jobs. 
We are all one team working for the good of the U.S-Angola relationship 
and the interests of the United States and the American people.

    Question 12. U.S.--Angola Relations: During the Obama 
administration, issues of democracy, human rights, and development were 
discussed with Angola through a Human Rights Dialogue held as part of 
the U.S.-Angola Strategic Partnership Dialogue.

   What is the status of the U.S.-Angola Strategic Partnership 
        Dialogue?
   If confirmed, will you commit to ensure that human rights and 
        democracy are put on the agenda of the U.S.-Angola Strategic 
        Partnership Dialogue?

    Answer. The U.S.-Angola Strategic Partnership Dialogue remains 
active, and has given us a platform to raise a variety of issues to the 
highest levels of government. Most recently, in May 2017, the Defense 
Minister, now the President of Angola, came to Washington to sign a 
Memorandum of Understanding on security cooperation with Secretary of 
Defense Mattis. This was regarded as a milestone in our partnership, 
and shows another facet of our continuing dialogue that our Embassy in 
Luanda pursues every day.
    If confirmed, I will commit to ensuring that human rights and 
democracy issues are discussed within the framework of the U.S.-Angola 
Strategic Partnership dialogue. I believe it is important to keep open 
and frank communication with countries like Angola, and maintaining 
dialogue on the state of civil society and human rights is vital to 
U.S. interests. I am confident our strategic partnership will continue 
to grow in the coming years and deepen and strengthen our countries' 
ties.

    Question 13. Angola's Regional Role: Angola currently holds the 
presidency of the International Conference for the Great Lakes Region 
(ICGLR). Given the administration's [decision] not to name a Special 
Envoy for the Great Lakes, much of the responsibility for engaging 
Angola on regional issues will fall to you for the duration of Angola's 
term as President.

   What do you see as the most significant issues related to peace and 
        security in the Great Lakes, and what actions will you advocate 
        Angola take as President of the ICGLR related to issues such as 
        the political crisis in Burundi, the political, security and 
        the humanitarian crisis in DRC?
   What diplomatic support will you provide to Angola as they attempt 
        to have the ICGLR address these issues?

    Answer. Angola provides stabilizing leadership in the region and 
exercises considerable regional influence. Under its ICGLR Presidency, 
Angola has chaired summits on issues in the DRC, for example. We expect 
Angola to continue to play an influential role in the ICGLR, and we 
will continue to engage through both Luanda and Brazzaville as the 
Republic of Congo assumes the Presidency imminently. In addition, 
Angola has participated in diplomatic plenaries, including the June 
International Contact Group meeting the State Department hosted here in 
Washington, to find a common way forward on key issues impacting the 
Great Lakes Region, including the crisis in Burundi. Most recently, 
Angola, along with the United States, participated in a high-level 
event on the margins of the UN General Assembly hosted by France and 
the United Kingdom to discuss the DRC's ongoing political impasse.
    Resolving the political impasse in the DRC, which we believe can be 
achieved only by the holding of credible elections and a peaceful, 
democratic transfer of power, is critical given its implications for 
stability in the DRC and the broader region. Regional leaders, and in 
particular Angola, can have considerable influence on and access to 
President Kabila; messages from the region are often better received 
than those of the United States or western partners. We have therefore 
worked closely to coordinate our messaging with Angola, which we 
believe increases the impact of our efforts.
    If confirmed, I would work with the Angolan government to 
strengthen its role as a steadying anchor in a turbulent region, in 
order to further mutual political and economic interests.

    Question 14. Corruption: Angola is a country regarded as one of the 
world's most corrupt--ranked 164th of 176 by Transparency 
International.

   In what sectors is most official corruption found in Angola?
   To what degree are former President Jose Eduardo dos Santos and his 
        family implicated in ongoing corruption?
   If confirmed, what tools do you have at your disposal to help 
        address corruption and what actions will you take as Ambassador 
        to advocate for improvement in transparency and good governance 
        with relevant Angolan stakeholders?

    Answer. Corruption impacts all facets of Angola's economy and 
society, and limits Angola's ability to grow and produce wealth for its 
people. It also contributes to a difficult business environment for 
U.S. companies. A culture of corruption with impunity was allowed to 
flourish during President Jose Eduardo dos Santos' 38 years in power. 
Transparency International also cited former President dos Santos for 
nepotism in appointing his daughter to head the state oil company 
Sonangol and his son to head the country's Sovereign Wealth Fund.
    Angola is a member of the Eastern and Southern Africa Anti-Money 
Laundering Group (ESAAMLG), a technical working body tasked with 
promoting and enforcing the Financial Action Task Force's anti-money 
laundering/counter terrorism financing (AML/CFT) standards in the 
Southern Africa region. These standards include mandates for 
transparency and beneficial ownership, regulation of sectors prone to 
money laundering and counter terrorism financing, and politically 
exposed persons. If confirmed, I will advocate for Angola's adherence 
to its ESAAMLG commitments, as well as advocate for changes in the 
current regulatory environment that allows proceeds from corruption and 
other illicit acts to move freely. I would also leverage Angola's 
upcoming mutual evaluation review of its AML/CFT regime and national 
AML/CFT risk assessment as an opportunity to advocate for lasting 
improvements in Angola's financial and other regulated sectors, prone 
to abuse by corrupt officials.
    If confirmed, I will strengthen U.S. efforts to work with the 
Government of Angola, as well as non-governmental organizations, to 
increase transparency and promote good governance to combat corruption 
and impunity better. This will take a coordinated, whole-of-government 
approach, and commitment from Angola's new government.

    Question 14. Trafficking in Persons: The State Department has 
ranked Angola ``Tier 2 Watchlist'' on trafficking in persons.

   If confirmed, what types of U.S. diplomatic efforts and assistance, 
        if any, would you pursue to help Angola better tackle this 
        problem?
   In what ways might such efforts be incorporated into existing U.S. 
        programs that aim to help strengthen Angola's security sector 
        and the rule of law?

    Answer. Angola moved up from the Tier 2 Watchlist designation in 
the 2015 Trafficking in Persons Report, and has remained off the 
Watchlist in the most recent 2017 report. The Government of Angola does 
not fully meet the minimum standards for the elimination of 
trafficking, but it is making significant efforts to do so.
    If confirmed, I will emphasize the critical importance of 
strengthening law enforcement efforts to detect and interdict suspected 
traffickers, particularly those involved in sex trafficking and forced 
labor. I will press the Angolan government to prosecute these 
individuals to demonstrate to perpetrators that strict penalties exist 
for these crimes and are enforced under Angolan. I will also work 
closely with the Department of State's Office to Monitor and Combat 
Trafficking in Persons to implement U.S. foreign assistance devoted to 
combatting trafficking in persons and protecting victims, and 
incorporate anti-trafficking initiatives into other aspects of the 
Embassy's work.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Daniel Foote by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promotion of human rights and democracy has been an 
important part of my career. In Colombia, I oversaw a comprehensive, 
joint review of the curricula used by the Colombian National Police 
(CNP) by all officers. A critical impact of the review's 
recommendations was the successful inclusion of human rights modules at 
every level of CNP professional development training, and a marked 
decrease in reported human rights irregularities. In Afghanistan, I led 
the expansion of U.S. support to shelters, and associated family 
guidance centers, for women and children who suffer from, or are 
vulnerable to, gender-based violence or trafficking-in-persons. The 
impact was a significant increase in the number of at-risk Afghans 
receiving protection and support.
    While serving in the Dominican Republic, I initiated programs to 
monitor and improve the human rights conditions of Haitian immigrants 
whom sugar barons mistreated. Working together with the Department of 
Labor and the Dominican Government, we enhanced Dominican capacity to 
address broad human rights issues and particularly the worst forms of 
child labor, leading to improved working conditions. In Haiti, I 
recruited the regional Department of Homeland Security Investigations 
office to investigate a large human-smuggling ring with ties to Major 
League Baseball.

    Question 2. What are the most pressing human rights issues in 
Zambia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Zambia? What do you 
hope to accomplish through these actions?

    Answer. In the lead-up to the 2016 Zambian election, we 
unfortunately saw increasing levels of intolerance and even some acts 
of violence that members of both parties committed, along with the 
incumbent party leveraging the resources of the state to its advantage. 
Despite these problems, the U.S. Government believed the 2016 election 
reflected the will of the Zambian people. However, since President 
Lungu's re-election, we have seen continued conflict between the 
political parties, culminating in opposition leader Hakainde 
Hichilema's arrest in April 2017 on charges of treason. Although 
Hichilema was released in August, we continue to see government 
attempts to limit political space for the opposition, civil society, 
and the media, including an ongoing "threatened" state of emergency, 
which we hope will lapse in the coming days.
    The continued restrictions on freedoms of assembly and speech we 
have witnessed in Zambia remain a concern. If confirmed, I would 
continue to engage the Government of Zambia and advocate for respect 
for the rule of law and the need to enhance further Zambia's reputation 
for political pluralism. I strongly believe that Zambia's continued 
democratic success, which includes respect for human rights and the 
rule of law, and the long-term peace and stability that it provides, is 
in Zambia's own interests as well as the interests of its people and 
the U.S. Government.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Zambia in advancing 
human rights, civil society, and democracy in general?

    Answer. The political tensions in Zambia continue to serve as 
potential obstacles to addressing human rights in Zambia, particularly 
in regard to respecting fundamental freedoms, including freedoms of 
assembly and press. However, recent developments, particularly the 
release of opposition leader Hakainde Hichilema in August and the offer 
by the Commonwealth's Secretary General (SG) to facilitate dialogue 
between the two sides on the issues dividing the country, are 
promising. The Commonwealth's SG has appointed an envoy to promote 
constructive dialogue and reconciliation involving Zambia's political 
parties and civil society, designed to develop reforms that will help 
lead the country forward. If confirmed, as Ambassador, I will continue 
to encourage both sides to embrace the dialogue process and work with 
Zambian civil society and the Commonwealth's envoy.
    Furthermore, taking a broader view on the issue of advancing human 
rights, civil society, and democracy, I will advocate for human rights 
and the role of civil society in working with government to promote 
democracy. If confirmed, I will continue to strengthen our work on 
these issues and ensure we include human rights issues prominently in 
our engagement with Zambia, ensuring that all Zambians have a voice in 
their society.

    Question 4. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Zambia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Yes, if confirmed as Ambassador, I will meet with human 
rights, civil society, and other non-governmental organizations because 
I recognize that it is important that I meet with Zambians from all 
walks of life, especially representatives from civil society and NGOs. 
I will absolutely meet with human rights defenders as well as with 
U.S., local, and international NGOs. If confirmed, as Ambassador, I 
will direct my staff to ensure all security assistance and security 
cooperation activities receive Leahy and other vetting to reinforce 
human rights.

    Question 5. Will you and your embassy team actively engage with 
Zambia to address cases of key political prisoners or persons otherwise 
unjustly targeted by Zambia?

    Answer. If confirmed, my team and I will work hard to ensure that 
the rule of law is respected in Zambia. I will continue to urge the 
Government of Zambia to exercise restraint in addressing differences, 
to respect the rule of law, and to follow the due process that we would 
expect from a country like Zambia that historically has had a 
reputation for political pluralism and peaceful conflict resolution. I 
will ensure my team actively engages with the Government of Zambia on 
political prisoners and others unjustly targeted. I will continue to 
advocate for the respect of fundamental human rights, to include the 
freedoms of speech and peaceful assembly, and advocate for all persons 
to receive timely, fair, equitable access to justice.

    Question 6. Will you engage with Zambia on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. I consider human rights and democracy advocacy to be a 
fundamental part of my job and if confirmed, I will engage with the 
Zambian Government on these issues. I will make support for human 
rights, civil rights, and good governance a key element of my 
engagement with the Government of Zambia.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I might have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I might have through 
appropriate channels

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Zambia?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. Per the Secretary's statement on diversity and equal 
employment opportunity, the Department of State is committed to having 
a workforce that reflects the diversity of the people whom we 
represent.
    As a career Foreign Service Officer specializing in management, 
former Assignments Officer for the Bureau of European and Eurasian 
Affairs, and two-time Deputy Chief of Mission, I have spent much of my 
career recruiting and supporting staff with diverse backgrounds and 
talents to maximize productivity and reflect the richness of American 
society. From staffing 88 posts between Rekjavik and Vladivostok, to 
working in tents on a Forward Operating Base in the hinterlands of 
Iraq, to supporting multi-billion-dollar assistance programs in 
Washington, I have developed an intense appreciation for the 
exceptional value of a diverse team. I took great pride in establishing 
effective, career-development mentorship programs at Embassies Port-au-
Prince and Santo Domingo. If confirmed as Ambassador, I will require 
diversity as a key element in recruitment, model ample and productive 
mentorship, and support relevant organizations that assist and advocate 
for employees diversity.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. An Embassy environment reflects the attitudes of its 
leadership. As Ambassador, I will actively set an example of 
inclusiveness and fairness for my subordinates, direct them to maintain 
inclusive environments in their sections and agencies, and will counsel 
accordingly if these standards are not adhered to rigidly.

Democracy Promotion
    Question 12.  In your confirmation hearing you made a commitment to 
promote a dialogue aimed at reconciliation and to advocate for respect 
for human rights.

    How will a reconciliation dialogue help support democracy? Will 
        such a dialogue address such issues as what was deemed the 
        politically motivated arrest and detention of opposition leader 
        Hakainde Hichilema, or the removal of civil servants alleged to 
        support the United Party for National Development opposition 
        party? Will it address the closing media space?

    Answer. Democracy flourishes when citizens can voice diverse 
opinions about their government, including critical views, without fear 
of harassment or persecution. The environment for speaking freely in 
Zambia has been constricted, and a reconciliation dialogue will provide 
a formalized structure for all parties to air issues and seek redress 
or improvements to current processes and institutions. The Commonwealth 
Secretary General's offer to facilitate constructive dialogue and 
reconciliation provides all parties the opportunity to move Zambia 
forward.
    If confirmed, as Ambassador, I would continue to encourage both 
sides to embrace the dialogue process. I believe, in order such a 
dialogue to be successful, there needs to be a frank discussion of the 
political environment leading to last year's August general election 
and the related events that have since occurred. I anticipate these 
issues will naturally include concerns around restrictions on freedoms 
of the press, assembly, and expression and respect for rule of law and 
human rights. I would robustly engage with, and encourage, civil 
society and journalists to take appropriate steps to hold political 
leaders accountable for constitutional and democratic principles.

    Question 13. How much has the United States invested in Human 
Rights and Democracy programs in Zambia over each of the past four 
fiscal years? What types of programs would be beneficial in Zambia?

    Answer. The U.S. Government has been a stalwart supporter of human 
rights and democracy in Zambia for years. We have advocated for civil 
society strengthening, political pluralism, and human rights. In 
support of our policy approaches, we have supported complementary 
projects at various points from Fiscal Year 2014 through Fiscal Year 
2017 with a total value of approximately $9,200,000. Our investment in 
democracy and governance has increased over the past four years from no 
Development Assistance (DA) Funds provided for this area in 2014, $1 
million in 2015, $2 million in 2016, and $4 million in 2017. In 
addition, $1.8 million from the Elections and Political Process Fund 
and $400,000 in Economic Support Funds were designated for Zambia in 
2015. These investments supported national and international civil 
society organizations to advance productive citizen participation in 
civic events, as well as technical assistance for the Government of 
Zambia to reduce corruption, increase efficiency and accountability, 
and promote the protection of human rights.
    Looking forward, Zambia is a country where our investments in human 
rights and democracy programming can have continued impact. Despite 
current challenges, the Government is willing and open to engagement, 
and civil society is poised to play an increasingly important role as 
watchdog and citizen advocate. If confirmed, I will support national 
champions of responsive democratic governance within the Zambian 
Government, in addition to activities to: promote productive engagement 
by women and youth, buttress the Human Rights Commission, increase 
respect for fundamental freedoms, and support advocates of reform 
within relevant parliamentary committees.

Corruption
    Question 14. Zambia has made considerable progress in the fight 
against corruption in the last decade, as reflected by major 
improvements recorded in main governance indicators. However, 
corruption remains a serious issue in Zambia, affecting the lives of 
ordinary citizens and their access to public services.

   How effective is the Anti-Corruption Commission? Does it prosecute 
        high-level government officials? Has the United States provided 
        funding to the Commission? Why or why not?

    Answer. The Anti-Corruption Commission has had a reputation for 
being an independent institution that pursued allegations and developed 
cases based on their merits, unbiased with respect to the prominence of 
the person or transaction under review. In recent years, however, that 
reputation has weakened, with the Commission succumbing to increasing 
political pressure, i.e., pressure to investigate political opponents 
or government critics selectively or to prematurely halt investigations 
of politically connected individuals.
    By law, the Commission has no prosecutorial power. Based on the 
results of its findings, if the Commission believes a case has merit, 
it must turn the file over to the Zambia Police Service to act on the 
information and refer the matter to the Director of Public 
Prosecutions. The Commission has referred cases of high-level 
government officials with decreasing regularity over the last half 
dozen years.
    The U.S. Government last provided funding to the Commission over a 
decade ago, judging, at the time, that the Commission was among the 
stronger institutions in Zambia and was worth receiving limited U.S. 
resources. Currently, given the political pressures on the Commission, 
U.S. Government resources likely would be more effective in reducing 
corruption within specific government structures that interface with 
citizens, such as the sectoral line ministries and the Office of the 
Auditor General.

    Question 15. If confirmed, what specific actions will you take in 
your first year as Ambassador to highlight the need to effectively 
fight corruption, and how will you support anti-corruption advocates?

    Answer. If confirmed, I will leverage my experience leading anti-
corruption efforts in the Bureau of International Narcotics and Law 
Enforcement. I intend to meet with anti-corruption advocates, such as 
Transparency International--Zambia and the African Parliamentarians 
Network Against Corruption, to understand the nature of corruption 
allegations better and learn about Zambians' efforts to address 
concerns about malfeasance by their own government. If confirmed, I 
anticipate working in collaboration with civil society partners to 
bring additional attention to these issues and raise concerns directly 
with government leaders. I will also work to buttress the role of anti-
corruption champions within the Government of Zambia, such as the 
Office of Auditor General and relevant parliamentary oversight 
committees. I also plan to undertake efforts to encourage Zambian 
citizens to hold their own government accountable, such as continuing a 
series of dialogues between youth leaders and government officials the 
Embassy has recently initiated.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Daniel Foote by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Promoting human rights and democracy has been an important 
part of my work in the State Department. As Director of the Office of 
West African Affairs, I met regularly with Cabinet-level African 
officials and Washington-based Ambassadors to press them to ensure 
their countries respect human rights. On several occasions I brought 
specific cases to their attention where we believed human rights had 
been violated. I was part of the Department of State team that led the 
response to the attempt by The Gambian President Jammeh to remain in 
power after he lost the election in December 2016. We worked with the 
international community, especially neighboring African countries, to 
force President Jammeh to respect the results of the election and give 
up power peacefully.
    As Deputy Chief of Mission and Charge d'Affaires in Mauritania, I 
met regularly with anti-slavery activists and spoke out publicly, 
including at an anti-slavery event, in order to raise awareness of the 
issue and demonstrate U.S. support for the activists.
    As Refugee Coordinator in Baghdad, Iraq, I advocated with the Iraqi 
Government on behalf of the displaced and persecuted religious 
minorities. In Geneva, Switzerland, I advocated bilaterally and in the 
multilateral arena for other countries to increase their efforts and to 
match what the United States was doing to assist the displaced.
    I believe that my efforts, working in partnership with others, 
contributed to changes in policies and assistance and support levels. 
Although the nature of human rights work often does not lead to 
immediately apparent results, I still believe it is important as a 
representative of the United States to speak up in support of human 
rights and democracy and will, if confirmed continue to do so, as I 
have throughout my career.

    Question 2. What are the most pressing human rights issues in 
Mauritius and Seychelles? What are the most important steps you expect 
to take--if confirmed--to promote human rights and democracy in 
Mauritius and Seychelles? What do you hope to accomplish through these 
actions?

    Answer. Both Mauritius and Seychelles have generally good records 
on democracy and human rights, though challenges remain. In Mauritius, 
freedom of speech is a challenge, as the Government owns the sole 
television station, and has engaged in censorship. Also, violence 
against women is a societal problem. If confirmed, I expect to engage 
with the national leadership to expand opportunities for private 
ownership of media communications and also to call for justice for the 
victims of domestic violence.
    Likewise, in Seychelles, the Government owns the sole television 
station and one of the country's only two radio stations. Viewpoints at 
odds with the Government are rarely broadcast, and opportunities to 
engage in free speech are therefore limited. Domestic violence against 
women is underreported, and police rarely respond to domestic disputes. 
If confirmed, I plan to encourage the licensing of additional broadcast 
stations, and seek effective prosecutions of domestic violence cases.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Mauritius and 
Seychelles in advancing human rights, civil society and democracy in 
general?

    Answer. Both Mauritius and Seychelles have expressed interest in 
continuing to improve their respective human rights records, and I do 
not see lack of willingness as an obstacle. I would expect that either 
country or both, may ask for additional training or resources to do so. 
Civil society and democratic institutions are healthy, as demonstrated 
by the two countries' high standing in various international indices, 
including the Ibrahim Index of African Governance.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Mauritius and Seychelles? If confirmed, what 
steps will you take to pro-actively support the Leahy Law and similar 
efforts, and ensure that provisions of U.S. security assistance and 
security cooperation activities reinforce human rights?

    Answer. Yes, in the course of my career, I have met with a variety 
of human rights and civil society groups in the United States and 
abroad and, if confirmed, will continue to do so in my new assignment. 
In previous postings, I have insisted upon strict adherence with Leahy 
vetting rules, prohibiting human rights violators from participating in 
U.S. security programs, and explaining, our legal requirements. If 
confirmed, I will continue to do so in Mauritius and Seychelles.

    Question 5. Will you and your embassy team actively engage with 
Mauritius and Seychelles to address cases of key political prisoners or 
persons otherwise unjustly targeted by Mauritius and Seychelles?
    Answer. At the moment, we are unaware of any political prisoners or 
persons unjustly targeted by either government. But yes, if it becomes 
necessary, this will be one of the country team's key responsibilities, 
and if confirmed, I will vigorously engage with the host government.

    Answer.

    Question 6. Will you engage with Mauritius and Seychelles on 
matters of human rights, civil rights, and governance as part of your 
bilateral mission?

    Answer. Yes, this is imperative, and central to the Mission's goals 
and objectives.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Mauritius or Seychelles?

    Answer. No, neither I, nor members of my immediate family, have any 
such interests.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As I have done throughout my Foreign Service career, I will 
continue to mentor, promote, and support all members of the Mission 
staff through one-on-one consultations, group training, and counseling, 
where appropriate. I will pay particular attention to those staff 
members who come from diverse backgrounds or are from underrepresented 
groups in the Foreign Service.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I will make sure that this goal is reflected in the stated 
mission of the Embassy, and that we periodically review as a country 
team and as individuals how we are meeting these standards. To the 
extent that I find we are insufficient in fostering such an 
environment, we will take targeted steps to remedy it.



                               __________





                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, OCTOBER 4, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
presiding.
    Present: Senators Rubio [presiding], Risch, Gardner, Kaine, 
Cardin, and Shaheen.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. This is the Senate Foreign Relations 
Committee nominations hearing for Governor Sam Brownback to be 
the Ambassador-at-Large for International Religious Freedom, 
and Ms. Michele Sison to be the U.S. Ambassador to Haiti.
    Thank you both for being here with us today and for your 
willingness to serve.
    As I told the nominees earlier, I am going to abbreviate my 
opening statement, because we do have votes scheduled in the 
Senate at 11. These are important nominations, and I want to 
make sure everybody has time to answer questions.
    I would also encourage the nominees, as your opening 
statements will be in the record, make sure you say what you 
need to say, but I know our members are looking forward to 
engaging with you, and we want to make sure that they have the 
full opportunity to do that.
    On international religious freedom, I just think any sort 
of cursory glance around the globe will reveal daily assaults 
on religious freedom. In Burma, we have nearly half a million 
Rohingya Muslims that have been forced to flee their homes due 
to horrific violence. In Iraq and Syria, ancient Christian 
communities, Yazidi, and other religious minorities are on the 
verge of extinction. In Iran, the Baha'i minority is ruthlessly 
persecuted. In Pakistan, draconian blasphemy laws sentence 
innocent people to death. In China, the Government shuts down 
underground churches, bulldozes Tibetan Buddhist centers. In 
Cuba, the Castro regime regularly arrests the Ladies in White 
on their way to mass every Sunday, including this past Sunday. 
In Saudi Arabia, the official textbooks teach hate and 
intolerance toward religious minorities.
    So sadly, there is no corner of the map that is untouched. 
That is why a robust American engagement on behalf of the 
beleaguered faith communities is an urgent need and, I think, 
international security interest. So the hearing could not be 
timelier.
    As I said, Governor Brownback has been a long-time champion 
of the issue of religious freedom globally and sought to ensure 
that America's first freedom is infused into our U.S. foreign 
policy.
    Among other things, he was the driving force in passing the 
original International Religious Freedom Act in 1998, which 
created the position he is now nominated to fill.
    In Haiti yesterday, Ms. Sison and I spoke about the 
challenges and opportunities in Haiti. Florida, my home State, 
has the largest Haitian-American diaspora, and I remain engaged 
in the community and in many challenges facing their nation of 
birth.
    One of the major areas of concern is the United Nations 
Stabilization Mission in Haiti, known as MINUSTAH, is scheduled 
to withdraw on October 15, just a few days from now. The new 
security mission is smaller than the original mission. So it is 
vital that the United States support international efforts to 
enhance and maintain security in Haiti.
    Ongoing natural disasters, global health challenges like 
HIV/AIDS, malaria, and cholera have also undermined Haiti's 
ability to meet its full potential.
    I personally have seen firsthand the potential of the 
Haitian community when they have been given the opportunity, as 
they have in Florida. And I am committed to supporting U.S. 
initiatives that promote good governance and security, and, 
hopefully, our foreign policy will remain committed in that 
direction.
    I will now introduce Senator Kaine. And then, obviously, 
also our ranking member, Senator Cardin, joins us, and he may 
have some comments that he would like to make at the opening. 
And then, hopefully, we can proceed to brief introductory 
statements and get right into the questions.
    Again, we apologize. But as Governor Brownback knows, the 
Senate does things this way. [Laughter.]
    Senator Rubio. So, anyway, Senator Kaine?

                 STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. Thank you, Mr. Chair. I have enjoyed working 
with you on religious liberty issues.
    The day I got back from a wild 105-day ride in November 
2016, you and I introduced a bill about combating anti-Semitism 
around the globe through the State Department, and I have 
appreciated your partnership.
    I also am really thrilled to have both of these nominees 
who have strong public service track records, but also my 
friend and a great champion of religious liberty, Frank Wolf, 
here.
    I am not going to give an opening comment, except to say 
that it is important that we have Governor Brownback's hearing 
on the same day we are going to follow up with a substantive 
hearing about the situation of minorities, including religious 
minorities, in Iraq. So I am glad that we are doing both of 
these together.
    And that will be all opening comments that I will make.
    Senator Rubio. Thank you. And the ranking member, Senator 
Cardin, is here. He and I have worked together now on countless 
human rights issues, so much so that people are starting to say 
that we look alike. I do not know. [Laughter.]
    Senator Rubio. That would be good for me.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. That is a great compliment. Thank you, Mr. 
Chairman. I appreciate it.
    Senator Rubio has been a great champion on human rights. I 
think he would agree with me that we are all students of Frank 
Wolf.
    Frank, we thank you for your long commitment to human 
rights. It was a real honor to serve with you in the House of 
Representatives. It is always good to see you. You are a great 
friend, a great role model for all of us. So thank you for 
being here.
    It is Senator Brownback, not Governor. We take the higher 
title. [Laughter.]
    Senator Cardin. The Senator was a great leader on the 
Helsinki Commission. We worked together on many human rights 
issues. A great record, he has an excellent record of working 
across party lines to get things done in the United States 
Senate. We very much admire your continued interest to serve 
the public.
    And we thank you and your family for being willing to serve 
our country. It is a tremendous sacrifice.
    And to Ms. Sison, I understand that you are a Marylander, 
and you have served a career in diplomatic service. We thank 
you for your willingness to continue to serve our country.
    Again, we thank you and your family.
    You had the best sense to live in the State of Maryland, so 
we appreciate that very much.
    Senator Rubio. All right, Ms. Sison, we will begin with 
you, for your opening.

STATEMENT OF MICHELE JEANNE SISON, OF MARYLAND, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF CAREER MINISTER, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
           STATES OF AMERICA TO THE REPUBLIC OF HAITI

    Ambassador Sison. Mr. Chairman, and members of the 
committee, I am honored to appear before you as President 
Trump's nominee to serve as U.S. Ambassador to the Republic of 
Haiti. I am grateful for the confidence the President and 
Secretary Tillerson have placed in me.
    For the past 3 decades, I have been honored to represent 
our country as a career Foreign Service Officer.
    I want to give a shout-out today to my daughters, Allie and 
Jessica, U.S. Foreign Service kids who traveled the world with 
me.
    I have been privileged to lead our embassies in the United 
Arab Emirates, Lebanon, and Sri Lanka as U.S. Ambassador, and 
currently serve as the U.S. Deputy Permanent Representative to 
the United Nations.
    Mr. Chairman, if confirmed by the Senate, I pledge to work 
closely with the Congress to advance America's interests in 
Haiti.
    The U.S. and Haiti share a long history. We are close 
neighbors and are linked through a sizable Haitian-American 
diaspora.
    Over the years, Haiti has suffered periods of violence and 
political instability that slowed its economic growth. I first 
served in Haiti in the early 1980s, my first tour with the 
State Department. Then, as now, it was clear that Haiti needed 
to strengthen governmental institutions, good governance, and 
transparency, if it was to prosper and lift its citizens from 
deep poverty.
    Today, after 2 years of political impasse, Haiti has a 
democratically elected government in place. The United States 
and the international community now have a long-term partner 
with whom we can engage. The United States has worked in 
partnership with the Haitian-led process to help the country 
build a more promising future.
    Thanks to broad bipartisan support in Congress, U.S. 
assistance has helped advance economic opportunities for 
Haitians, develop a comprehensive food security strategy, 
provide access to basic health care and water and sanitation 
services, and improve educational opportunities for youth. This 
strong U.S. engagement helps encourage Haitians to live and 
work in Haiti rather than embark on often dangerous and illegal 
migration, including to the United States, which in turn 
supports U.S. efforts to secure our borders.
    Since 2010, U.S. assistance has seen notable successes. For 
example, $8 million in investment capital from the private 
sector and other sources has been mobilized through a USAID 
project to assist small- and medium-sized enterprises creating 
jobs for over 13,000 Haitians, about a third of whom are women. 
In addition, almost 13,000 jobs have been created in northern 
Haiti's industrial park with U.S. support. And some 70,000 
farmers have increased incomes while the U.S. Government has 
also introduced new technologies, including improved seeds, 
fertilizer, irrigation, to another 118,000 farming households.
    The Haitian national police is now a stronger, better 
trained force with U.S. support.
    And many health indicators continue to improve through the 
U.S. Centers for Disease Control and Prevention and the USAID 
programming. We have provided more than $100 million to prevent 
and respond to cholera as well.
    But Haiti's long-term development will require the 
Government of Haiti to continue to institutionalize rule of law 
and anticorruption efforts, uphold more transparent and 
accountable institutions to improve the future of Haitian 
citizens, and address the factors contributing to migration and 
trafficking in persons.
    Our rule of law assistance, as I mentioned, supports the 
Haitian national police in supporting its capacity. We are also 
working to support judicial independence, reduce pretrial 
detention levels, and support legislative reforms.
    As you mentioned, Senator, recently, the U.N. Security 
Council voted unanimously to withdraw the military component of 
the U.N. peacekeeping mission in Haiti, a mission that had been 
deployed since 2004. This U.N. vote reflected recognition of 
the progress Haiti had made toward stabilization and return to 
democratic quarter.
    A smaller police-only U.N. successor mission will launch on 
October 16 and will focus on police development, strengthening 
the rule of law, and protecting human rights. If confirmed, I 
will work to ensure strong coordination between the Haitian 
Government and U.N. rule-of-law efforts, and our own U.S. 
programming in this critical sector.
    Finally, while continuing to take into account the 
challenges in Haiti, we must not lose sight of the factors 
working in Haiti's favor, including its vibrant civil society 
and media, and, of course, our strong and engaged Haitian-
American population here at home.
    Of course, the most important of these factors is the 
continued support of congressional committees and staff. What 
happens in Haiti is important to the United States. Haiti is a 
neighbor whose stability and success bolsters our own security 
and that of the region.
    A Haiti that takes full responsibility for its own 
prosperous and democratic future is certainly in our interests. 
And if confirmed, I will do my best to promote the U.S.-Haitian 
partnership and lead our talented U.S. interagency team at 
Embassy Port-au-Prince.
    I appreciate your consideration of my nomination, and I 
would be happy to answer any questions you may have for me.
    Thank you, Mr. Chair.
    [Ambassador Sison's prepared statement follows:]


                 Prepared Statement of Michele J. Sison

    Mr. Chairman and members of the committee, I am honored to appear 
before you as President Trump's nominee to serve as U.S. Ambassador to 
the Republic of Haiti. I am grateful for the confidence the President 
and Secretary Tillerson have placed in me.
    For the past three decades, I've been honored to represent our 
country as a career Foreign Service officer. I've been privileged to 
lead our Embassies in the United Arab Emirates, Lebanon, and Sri Lanka 
as U.S. Ambassador, and currently serve as U.S. Deputy Permanent 
Representative to the United Nations.
    Mr. Chairman, if confirmed by the Senate, I pledge to work closely 
with the Congress to advance America's interests in Haiti.
    The U.S. and Haiti share a long history. We are close neighbors and 
are linked through a sizable Haitian-American diaspora. Over the years, 
Haiti has suffered periods of violence and political instability that 
slowed its economic growth.
    I first served in Haiti in the early 1980's--my first tour with the 
State Department. Then, as now, it was clear that Haiti needed to 
strengthen governmental institutions, good governance, and transparency 
if it was to prosper and lift its citizens from deep poverty. Today, 
after two years of political impasse, Haiti has a democratically-
elected government in place; the United States and the international 
community now have a long-term partner with whom we can engage.
    The United States has worked in partnership with a Haitian-led 
process to help the country build a more promising future. Thanks to 
broad bipartisan support in Congress, U.S. assistance has helped 
advance economic opportunities for Haitians; develop a comprehensive 
food security strategy; provide access to basic health care and water 
and sanitation services; and improve educational opportunities for 
youth.
    This strong engagement helps encourage Haitians to live and work in 
Haiti, rather than embark on dangerous and illegal migration to the 
United States, and supports U.S. efforts to secure our borders.
    Since 2010, U.S. assistance of $8 million in investment capital 
from the Haitian private sector and other sources has been mobilized to 
assist small-and medium-sized enterprises--creating jobs for over 
13,000 Haitians, about one-third of whom are women. In addition, almost 
13,000 jobs have been created in northern Haiti's industrial park. Some 
70,000 farmers have increased incomes and the U.S. Government has also 
introduced improved seeds, fertilizer, irrigation, and other new 
technologies to over 118,000 farmers. And the Haitian National Police 
is now a stronger, better-trained force. Many health indicators 
continue to improve, and through the U.S. Centers for Disease Control 
and Prevention and the U.S. Agency for International Development, the 
United States has provided more than $100 million to prevent and 
respond to cholera.
    But Haiti's long-term development will require the Government of 
Haiti to continue to institutionalize rule of law and uphold more 
transparent, accountable institutions to improve the future of Haitian 
citizens and address the factors contributing to migration and 
trafficking in persons. U.S. rule of law assistance in Haiti supports 
the Haitian National Police in improving its capacity and growing its 
ranks to better serve and protect the Haitian people. The Haitian 
National Police has made significant progress with U.S. support, 
including increasing its community policing, counter-narcotics and 
anti-kidnapping capabilities. Our assistance is also aimed at 
strengthening judicial independence, reducing pre-trial detention 
levels, and supporting legislative reforms.
    Recently, the U.N. Security Council voted unanimously to withdraw 
the military component of the U.N. peacekeeping mission in Haiti, a 
mission that had been deployed since 2004. The U.N. vote reflected 
recognition of the progress Haiti had made towards stabilization and 
return to democratic order. A smaller, police-only U.N. successor 
mission will launch on October 16, 2017, and will focus on police 
development, strengthening the rule of law, and protecting human 
rights. If confirmed, I will work to ensure strong coordination between 
Haitian Government and U.N. rule of law efforts and our U.S. 
programming in this crucial sector.
    Finally, while continuing to take into account the challenges in 
Haiti, we must not lose sight of the factors working in Haiti's favor, 
including its vibrant civil society and media. Of course, one of the 
most important of these factors is the continued support of 
Congressional committees and staff. What happens in Haiti is important 
to the United States; Haiti is a neighbor whose stability and success 
bolsters our own security and that of the region. A Haiti that takes 
full responsibility for its own prosperous and democratic future is 
certainly in our interest. If confirmed, I will do my best to promote 
the U.S.-Haitian partnership and lead our talented U.S. interagency 
team at Embassy Port-au-Prince.
    I appreciate your consideration of my nomination, and I would be 
happy to answer any questions you may have for me.
    Thank you.


    Senator Rubio. Thank you very much.
    The Honorable Frank Wolf is here. We welcome him to the 
committee. He is here to introduce the President's nominee to 
be Ambassador-at-Large for International Religious Freedom.

 STATEMENT OF FRANK R. WOLF, DISTINGUISHED SENIOR FELLOW, 21ST 
     CENTURY WILBERFORCE INITIATIVE, FALLS CHURCH, VIRGINIA

    Mr. Wolf. Thank you, Mr. Chairman and Senators. I will be 
very brief.
    It is an honor to be here with Governor and Senator 
Brownback today.
    I have watched the Governor involved in international 
religious freedom, advocacy for the bill, trafficking in 
victims and persons, Sudan Peace Act, North Korea Human Rights 
Act.
    Senator Brownback was the first Senator to go to Sudan, 
Darfur, during the genocide. I was with him on that trip. I 
watched him in action. We were in a village when the Janjaweed 
were doing things to women. And I watched Sam, and I just have 
to tell you, he will be an outstanding Ambassador for us.
    Senator Rubio. Thank you.
    Governor or Senator?
    Governor Brownback. Governor, please.
    Senator Rubio. All right, Governor.

   STATEMENT OF HON. SAMUEL DALE BROWNBACK, OF KANSAS, TO BE 
    AMBASSADOR-AT-LARGE FOR INTERNATIONAL RELIGIOUS FREEDOM

    Governor Brownback. I am currently occupied but interested 
and hopeful to be confirmed for this position to be able to 
move into the role of Ambassador.
    I have to say, Frank Wolf, he is a mentor of mine. I think 
he is probably the mentor of several of us. He just has taught 
me so much on how you do these issues and the passion that you 
need to do them with. Because to me, you have to have a passion 
about these things to be able to stick with it the length of 
time it takes to get them done. And he has done that, and I am 
honored that he would be here to introduce me.
    I also would like to recognize Ambassador Rabbi David 
Saperstein, who is the most recent occupant of this position, 
who I have consulted with a couple times already on the phone. 
I worked with him previously. When I was in the Senate, he was 
on the commission, not the Ambassador himself. And I found him 
great to work with.
    And I would like to say to my former colleagues here, this 
is a position that this body created. We did it in 1998, and 
then you renewed it last year under the Frank Wolf Act. It is 
one of those topics that this place has worked very hard to 
keep bipartisan. And because of that, it has had a strength 
that I think some other issues tend not to have.
    I pledge to you to continue that bipartisan effort on it. I 
have worked in this town over a number of years in different 
capacities and in different ways. The way you get things done 
is often to really try to build that coalition. And often, 
there are people who do not agree on different pieces of the 
topic. But if you can build the coalition and you can sustain 
it, you can have something that has longevity, and you can have 
something that will have impact. And I believe that is what 
that position can and will be able to do.
    If confirmed, I look forward to working with a number of 
you on specific international religious freedom issues. And 
Lord knows, there are enough of them around the world, whether 
it is Rohingya that is taking place now, whether it is the 
Nineveh plains. You could probably go around the world and list 
a bunch.
    I have read through these reports recently, because I have 
been serving as Governor recently. But going back through it, 
the situation just keeps getting worse. Until, I think, we 
really engage this topic of international religious freedom and 
say that, look, this is a fundamental right that you have, to 
do with your own soul what you choose. This is your right. You 
need to be able to do it without interference by government or 
groups. This is a right that we will stand up and defend 
wherever you are, whoever you are, whatever you believe, or no 
belief at all. We will stand for you. And we are going to stand 
committed for you to be able to practice what you see fit.
    I think this is one of these fundamental human rights that, 
if we start to get it right, and it starts to penetrate further 
around the world, you are going to see more peace breakout in 
places. And you are going to see the rest of a number of human 
rights continue to, hopefully, grow and flourish.
    If we do not get it right, if we do not have religious 
freedom around the world, you are going to see a continuation 
of many more conflicts like we have today, and probably growing 
and accelerating taking place.
    I think this issue is just so critical. It is foundational 
to our Constitution. It is foundational to the U.N. Declaration 
of Human Rights. It was started by this body. It is continued 
by this body. This position was created here in the Congress.
    And I really look forward, if confirmed, to working with a 
number of you, because if we do not, we are going to miss an 
opportunity. And if we miss this opportunity, there is going to 
be far more difficulty in the world. That is what it is going 
to be like.
    And, Mr. Chairman, I would like to submit my full statement 
for the record.
    Senator Rubio. Absolutely. There will be no objection to 
that.
    [Governor Brownback's prepared statement follows:]


              Prepared Statement of Governor Sam Brownback

    Good Morning Chairman Rubio, Ranking Member Kaine, and members of 
the committee, It is an honor to appear before the committee as the 
President's nominee for the position of Ambassador-at-Large for 
International Religious Freedom. I thank the President, Vice President, 
and Secretary Tillerson for their confidence in me in making this 
nomination.
    Religious freedom is a fundamental right of every human no matter 
where they live, who they are, or what they believe. It is the right to 
do with your own Soul what you choose, without the interference of any 
government or group.
    So declares Article 18 of the Universal Declaration of Human 
Rights. So states our Constitution. So say our hearts in our universal 
yearning to be free.
    Freedom begins on the inside. It is the nature of our hearts to 
chaff against bondage. Yet millions in the world live in countries 
where they are not free to worship and indeed risk their lives to 
pursue their faith. This administration will not tolerate the continued 
assault on of religious freedom.
    Promotion of international religious freedom is in our national 
interest, and it directly supports national security priorities 
including the defeat of ISIS and other violent extremist groups. When 
Secretary Tillerson released the 2016 International Religious Freedom 
Report recently, he noted that, ``Where religious freedom is not 
protected, instability, human rights abuses and violent extremism have 
a greater opportunity to take root,'' and, ``no one should have to live 
in fear, worship in fear or face discrimination for his or her 
beliefs.''
    Further, the Secretary emphasized that protection of the rights of 
religious minorities and other victims of violent extremism is a human 
rights priority for the Trump administration, and that the 
administration will ``continue working with our regional partners to 
protect religious minority communities from terrorist attacks and to 
preserve their cultural heritage.''
    The Congress is to be commended for focusing the federal government 
on this alarming deterioration of freedom with the groundbreaking 
International Religious Freedom Act of 1998, an Act I was honored to 
sponsor. During my fourteen years serving in the United States Senate, 
I was involved in a diverse range of issues related to religious 
freedom. I spoke out against atrocities committed against Christians in 
the Sudan, and pushed passage of the Darfur Peace and Accountability 
Act in 2005, to expand peacekeeping and logistical support for the 
region. In 2009, I co-sponsored a resolution condemning the state 
sponsored persecution of the Baha'i minority in Iran. In 2000, I was 
instrumental in enacting the Trafficking Victims Protection Act. Human 
trafficking of individuals is often associated with religious 
persecution.
    As a Senator serving on the Senate Foreign Relations Committee for 
eight years, I presided over hearings, Senate oversight hearings of the 
United States Commission on International Religious Freedom. I fully 
understand the important role of the Commission in informing United 
States decision makers and other world leaders about religious freedom. 
Last year, you passed, and President Obama signed into law, the Frank 
R. Wolf International Religious Freedom Act to further address and 
focus the U.S. Government on the dire plight of religious minorities 
around the world.
    This position of Ambassador-at-Large for International Religious 
Freedom is integral to our priority foreign policy goals, and if 
confirmed I pledge to use my energies and the range of diplomatic tools 
to strengthen international religious freedom issues and concerns in 
U.S. foreign policy. As called for in the International Religious 
Freedom Act, I pledge to: ``[Stand] for liberty and [stand] with the 
persecuted, to use and implement appropriate tools in the United States 
foreign policy apparatus, including diplomatic, political, commercial, 
charitable, educational, and cultural channels, to promote respect for 
religious freedom by all governments and peoples.''
    You have spoken with clarity and conviction of the commitment of 
our people to this most basic right. It is now incumbent on the 
Executive Branch to fully implement the law. If confirmed, I will do my 
utmost to implement the law to its fullest by working with Department 
bureaus, posts and missions to elevate and fully integrate 
international religious freedom into security strategies and strategic 
planning, and will work with other government agencies to develop a 
comprehensive whole-of-government approach.
    Further, if confirmed, I will press the leaders of other countries 
for the release of religious prisoners and for needed reforms, and be 
on alert for bilateral and multilateral opportunities to protect 
religious freedom victims and advance international religious freedom. 
I will also review diplomatic training to ensure that there is a strong 
curriculum that sensitizes all Ambassadors, Chiefs of Mission, officers 
departing for overseas posts, and all entry-level officers, and ensures 
that international religious freedom is fully integrated into policy, 
programs, casework and other initiatives.
    Finally, if I am confirmed I will reach out to USCIRF in order to 
optimize our cooperation, and will meet with religious leaders, people 
of faith, and civil society groups to pursue our religious freedom 
goals. And I pledge to look to Congress for wisdom and help, as I know 
first-hand of the long-standing dedication you have to this cause, and 
I value your advice.
    Time is short. Every passing day finds more people persecuted, 
imprisoned, tortured and even killed for simply practicing their 
innermost convictions.
    We cannot let this dire situation continue without an aggressive 
response. We as Americans must stand strong for this first freedom or 
we will see the world spin into increasing conflicts and violence. We 
must act to protect and preserve this most basic right for all people.
    Thank you for your consideration. I look forward to your questions.


    Senator Rubio. I am going to defer my opening questions. I 
know members have votes, and I am going to be here a while.
    So Senator Gardner, by order of attendance.
    Senator Gardner. Thank you, Mr. Chairman.
    And thanks to both of you for your willingness to serve our 
country. I appreciate your willingness to serve.
    And, certainly, thanks to your families as well for this 
commitment.
    Governor Brownback, we had a great conversation and 
opportunity to visit in the office. One of the things that we 
did not get into too much--well, a little bit--was water. So 
the Colorado-Kansas water issues we will defer to another day, 
although it may take a religious perspective at some point 
between our two States. [Laughter.]
    Governor Brownback. Yes, you have to quit doing what you 
guys are doing. [Laughter.]
    Senator Gardner. Unfortunately, you had better lawyers than 
we have had. [Laughter.]
    Senator Gardner. Governor Brownback, during our 
conversation in the office, we talked a little bit about some 
of the unfortunate situation that has occurred, the incidents 
in India with a Christian organization called Compassion 
International. It is based out of Colorado Springs. Many people 
are familiar with it.
    Compassion International has been in India since 1968. But 
in March last year, it was forced to shut down because of the 
Government's spurious objections over its activities.
    Compassion provided health, nutrition, medical services, 
tutoring to over 145,000 children. Now, these children are left 
to their own devices. This organization situation raises 
overall concerns about religious freedom issues in India.
    According to the U.S. Commission on International Religious 
Freedom, in 2015, religious tolerance deteriorated and 
religious freedom violations increased in India. Minority 
communities experience numerous incidents of intimidation, 
harassment, violence.
    Furthermore, there seems to be a real crackdown on 
religious NGOs by the Indian Government in the last year. 
According to the same report, in April 2015, the Ministry of 
Home Affairs revoked the licenses of nearly 9,000 charitable 
organizations.
    Now I think India is an incredibly great nation, and I have 
the utmost respect for that nation. But I want to make sure 
that it is not taking a direction for the worse and make sure 
that we are aware of what is happening there. So could you talk 
about maybe some of the root causes of this religious 
intolerance and what we can help do to change that situation?
    Governor Brownback. Thank you very much, Senator, for the 
question. I am familiar with the issue that has arisen. I have 
not gotten internal briefs on what all has taken place, because 
I am not confirmed for the position, so I do not know any more 
than what I have been reading that is available publicly on it.
    I have worked with the Indian Government previously. When I 
started on this committee at a chair over here at the end, I 
was the subcommittee chairman that dealt with India, and I 
worked with the Government a great deal, the former BJP 
Government, not the current one. I am familiar with India.
    I think this is something we have to press them on, and we 
have to press hard. India has, in the past, had a very good 
track record, overall, of dealing with a lot of religious 
tolerance. It is a very religiously diverse Nation.
    I do not know what is causing this, but I pledge to you my 
work to press the Government of India to be a government that 
honors religious freedom for everybody. And we will look into 
the issue of what has taken place with Compassion 
International.
    I hope to be able to work with your office on it, too.
    Senator Gardner. Thank you very much, Governor. Obviously, 
my work on the East Asia Subcommittee has brought greater 
attention to the plight of persecution in Myanmar and the 
plight of the Rohingya there, and what we need to be doing to 
make sure that we provide guidance, leadership, and objection 
to the activities and the treatment that is taking place there, 
but also concern in China as well toward the Christian minority 
in China and what we can be doing around the globe.
    So thank you for your willingness to serve, both of you, 
again. And I will go back my time.
    Senator Rubio. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Again, to the witnesses, I congratulate you for your 
nominations.
    Governor Brownback, you are supported by a number of people 
I really care about and respect, and you are suited for this 
position in many ways. I do have a couple concerns, so let me 
just jump right to them.
    In 2015, you issued an executive order retracting an 8-year 
executive order in Kansas that provided protection in the State 
work force against adverse employment action on the grounds of 
sexual orientation. Describe why you did that.
    Governor Brownback. That was an order that created a right 
by the executive branch that was not available to other people, 
and it was not passed by the legislative branch. I believe 
those sorts of issues should be passed by a legislative branch.
    Senator Kaine. Do you commonly issue executive orders?
    Governor Brownback. What is that?
    Senator Kaine. Do you commonly issue, as Governor, 
executive orders?
    Governor Brownback. Some, but not a huge number.
    Senator Kaine. Isn't that kind of the point of an executive 
order? You issue an executive order on something that the 
legislature has not passed. If it was clearly in statute, you 
would not need to issue an executive order.
    Governor Brownback. Yes, but this is a foundational issue 
that you are creating a right for State employees that was not 
available to the rest of the people in the State.
    Senator Kaine. Was it bad to give State employees that 
right?
    Governor Brownback. I believe these sorts of things ought 
to be passed by the body. I am one who feels like you ought to 
create and have the law passed itself. So that answers why we 
did that, why I did that.
    Senator Kaine. As the Governor, do you appoint cabinet 
secretaries?
    Governor Brownback. I do.
    Senator Kaine. Do you appoint agency heads?
    Governor Brownback. Most, not all, but I do.
    Senator Kaine. And do you take those appointments 
seriously, interview people to make sure they are competent, 
honest, that they can do the job well?
    Governor Brownback. To the best of my ability.
    Senator Kaine. Do you feel like you have high standards in 
the people that you appoint?
    Governor Brownback. Yes.
    Senator Kaine. Wouldn't it be appropriate, in terms of 
setting a standard for your work force, for your cabinet 
secretaries and agency heads, for you to say to them, ``I do 
not think you should discriminate against people on the grounds 
of their sexual orientation?'' If you are hiring for honesty, 
if you are hiring for competence, wouldn't that be an 
appropriate thing that the Governor, as the chief of a State 
personnel operation, would want to know about leaders in State 
Government?
    Governor Brownback. I think that would be a rational thing. 
I just do not think it is a right that the executive branch 
should create without the legislative branch.
    Senator Kaine. When I was Governor, the first day, I did an 
executive order that protected people in a variety of ways, 
including on the grounds of sexual orientation. The first order 
I signed, about 10 minutes after I was inaugurated in 
Williamsburg.
    And I had an attorney general who made the same point to 
me. He said, well, the legislature didn't do this. And I said, 
but I am hiring agency heads and cabinet secretaries who are 
administering State Government. And I think, as the chief 
executive, one of the things I want to know about them is that 
they will not discriminate against employees.
    Can't you see that the retraction of an executive order 
like this that had been in place for 8 years sends a message 
that that is not a value, nondiscrimination against folks on 
the grounds of sexual orientation, that is not a value that you 
share?
    Governor Brownback. I do not think it sends that message. 
And furthermore, as being the Ambassador on Religious Freedom, 
I look forward to working with people, working with you, 
working with everybody, regardless of their ideas or views, on 
how we can advance the agenda of religious freedom.
    There may be differences on other topics. There are 
differences that Ambassador Saperstein and I have on other 
topics.
    Senator Kaine. Let me connect it to religious freedom.
    Governor Brownback. But the beauty of this topic has been 
that people, we tend to focus on what bipartisan things there 
are that we agree upon. And I pledge to you to do that in this 
role as Ambassador for Religious Freedom----
    Senator Kaine. Let me connect----
    Governor Brownback [continuing]. And continue the work that 
Ambassador Saperstein has done on this as well.
    Senator Kaine. Let me connect this to religious freedom.
    Are you aware that there are countries around the world 
where you can be imprisoned, and even executed, if you are 
LGBT?
    Governor Brownback. I believe that is correct.
    Senator Kaine. And are you also aware that, in some of 
those countries, the asserted justification for criminal 
treatment of people based on LGBT status is a religious 
justification? That is what is cited as the justification for 
the criminal punishment for people who are LGBT.
    Governor Brownback. I had a lengthy conversation yesterday 
with Randy Berry, who worked with Ambassador Saperstein in the 
prior administration, who has Kansas roots, as you do some as 
well.
    We had a good conversation about how these two offices work 
together. And I do not see doing anything any different than 
what they worked together on, as far as the topics.
    Senator Kaine. That was not really my question.
    Governor Brownback. But that really is the point of the 
job.
    Senator Kaine. Is there any circumstance under which 
religious freedom can justify criminalizing, imprisoning, or 
executing people based on their LGBT status?
    Governor Brownback. Well, I agree with what Randy Berry did 
around the world on that topic. I am not fully briefed on the 
various and the specifics. But what he basically did and 
described to me yesterday, the work they did back and forth 
with Ambassador Saperstein, I wouldn't see changing.
    Senator Kaine. Okay, but I am going to close just with this 
question. I would like an answer to this question.
    Is there any circumstance under which criminalizing, 
imprisoning, or executing somebody based on their LGBT status 
could be deemed acceptable because somebody asserts that they 
are religiously motivated in doing so?
    Governor Brownback. I do not know what that would be, in 
what circumstance, but I would continue the policies that have 
been done in the prior administration in working on these 
international issues.
    Senator Kaine. I really would expect an unequivocal answer 
on that.
    But my time is up.
    Senator Rubio. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations, Governor Brownback, Ambassador Sison. 
Thank you both for your willingness to serve.
    Ambassador Sison, I am especially appreciative that you are 
taking on the role in Haiti. I know that you have had other 
challenging roles in Lebanon and other places as Ambassador. So 
thank you for your willingness to do that.
    Governor Brownback, I want to ask you about your thoughts 
about what message it sends to the rest of the world with 
respect to religious persecution, because I agree, one of our 
first lessons as children in school is learning that the United 
States was founded because people were fleeing religious 
persecution. We have a group of Indonesians in New Hampshire 
who have been here fleeing persecution from Indonesia, 
religious persecution. They are Christians. And they are now 
under threat of deportation, even though they are not 
criminals.
    They are being sent back to Indonesia, where the record of 
religious persecution of Christians has gotten worse in the 
last several years.
    So what kind of message do you think that sends to the rest 
of the world, as we are holding the United States up as a model 
for trying to make sure that people of all faiths can be 
treated fairly here, to send back to a country where they are 
certainly going to be persecuted again because of their 
religion?
    Governor Brownback. I do not know the specific 
circumstances of what you are talking about, Senator. I will be 
happy to look into it, because it does not sound appropriate.
    Senator Shaheen. My question was really, what kind of a 
message does that send to the rest of the world when we are not 
willing to accept people fleeing religious persecution in the 
United States?
    Governor Brownback. Well, I think we should accept people 
that are fleeing religious persecution.
    I used to do a lot of this work, on helping people that 
were persecuted for their faith in various countries to get to 
the United States and help them when they would resettle in my 
State. And then there are often a lot of different 
circumstances engaged, other than just the one. The one is 
important, and it should not be one that causes them not to 
come. But often, there is just a series of what I found issues. 
And I am very sympathetic to people fleeing a plight because of 
the religious persecution.
    Senator Shaheen. Thank you. I appreciate the work you did 
in the Senate to address religious persecution. My concern is 
that sometimes that support has come at the expense of other 
groups, women, in particular. I think women's health is 
sometimes put at risk because of suggestions of ensuring 
individual's religious freedom.
    So how do you address that, for women who have been denied 
access to health care, even women who are victims of rape and 
incest who are not able to access abortion services? Why is 
that okay in the name of religious freedom for certain 
individuals?
    Governor Brownback. I am going to answer a broader question 
and then drill into your point here.
    The beauty of what this job has been I think under the 
prior administration and this one is that there are contentious 
issues that people do not agree upon, and this position has 
tried to stay in its lane on religious freedom. And we could 
veer off into a lot of other debate points and lose the support 
of the Congress, and lose support around the world.
    But I think the key piece is to stay in the lane of 
religious freedom. And those things that start to pull you out 
of it, you should not go there, whether it is the issue you are 
talking about or others, just because this one is so critical 
and difficult enough as it is without trying to venture into 
the difficult abortion debate or other debates domestically. 
And the focus is on international and the places we agree upon.
    That is how I did the original bills working on this, on 
human trafficking with Paul Wellstone. There were differences 
of opinion on what all should be included in that. But the ones 
that he was pursuing from his side of the aisle that I could 
not agree on, he dropped. The ones that I was pursuing on my 
side of the aisle that he wouldn't agree on, I dropped. And we 
ended up with a pretty decent bill.
    That is why I think this is an important position not to 
get into a number of these more difficult debate points that we 
are in, in the United States. And I pledge to you to stay there 
in this lane on a bipartisan basis.
    Senator Shaheen. So will you commit to this committee that 
you will work with civil society organizations who are 
defending human rights, not just for religious minorities but 
for women and for people in the LGBTQ communities?
    Governor Brownback. I will work with anybody that I can on 
the topic of religious freedom and not veer out of that lane, 
because I think if you start to veer out of that lane, you get 
pulled to other topics that other people are charged with 
doing. You are going to lose the bipartisan support for the 
position, which is critical to have.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    So Senator Kaine went to vote. When he gets here, he will 
assume the gavel until I get a chance to get over there and get 
back.
    So in the interim, I will just use that time to try to get 
my questions in.
    Just to bring further clarity, because a number of 
questions have pulled you in that direction, Governor 
Brownback, I want to kind of refocus a little bit on the job 
that you will have.
    The job of the Ambassador-at-Large is to advocate for 
religious liberty, which is oftentimes challenged or invariably 
challenged in places where either the population of that 
particular religious view is a minority in numbers, or even if 
they are a majority, the Government is of a different 
persuasion and targets those individuals for persecution.
    So the job that you have been nominated to do is basically 
to advocate for the religious liberty of all religious entities 
and denominations and views around the world, irrespective of 
the size, their theology, their views on one particular issue 
versus another. If there is persecution on the basis of 
religion, or oppression on the basis of religion, or the denial 
of liberty on the basis of religion, your job would be to 
advocate for that freedom for them to practice in peace.
    That is the scope of the job that you have been nominated 
to, is that correct, not to litigate theological points or 
policy differences beyond the scope of that liberty?
    Governor Brownback. That is. And I also think that is the 
strength of the position, is to stay in that lane that is 
bipartisan agreed to, that has seen these bills pass by large 
majorities or by unanimous consent on international religious 
freedom.
    If you start to veer into these more difficult issues and 
discussions, you will lose support for the job. You will lose 
support for the position. And the position will be less 
effective, if effective at all.
    Senator Rubio. Now in terms of the position itself, last 
year, the Congress passed the Frank Wolf International 
Religious Freedom Act, which, among other things, elevated the 
position you have been nominated to internally within the State 
Department, so that it now is, by statute, required to report 
directly to the Secretary, which was designed to combat years 
of the position and the issue being relegated to a sort of 
secondary concern rather than being fully integrated into U.S. 
foreign policy.
    Secretary Tillerson has informed the Senate of his intent 
to have this role report to the Under Secretary for Civilian 
Security, Democracy, and Human Rights. And I want to state 
clearly here and on the record, that runs contrary to the 
legislative intent of the law the Congress passed, and it is 
something that we object to.
    I am not asking you to opine on it, but I do want to use 
this opportunity to make clear that that is not the intent of 
that law, and we would view that as in direct violation and 
contradiction of the law that was passed.
    That said, I want to hear more about how you intend, 
obviously recognizing the limitations we have before us here 
today, what would you do, that you could share with us, to 
elevate the international religious freedom issues within the 
U.S. foreign policy at large and within the ranks of the U.S. 
State Department? Because that was the intent of this law, not 
just to require direct report but to elevate the importance of 
this as a critical component of our broader foreign policy.
    Governor Brownback. As one of the original sponsors of the 
1998 act, I thought the Frank Wolf act really improved on what 
took place in the 1998 act. The 1998 act was groundbreaking, 
but I think it had some limitations to it that a number of 
people saw.
    One of the big things I think needs to take place is what 
you put in the act of having a cross-agency, cross-section 
group that meets to advise and work on international religious 
freedom issues, so it is not just within the State Department. 
It is also a security apparatus and the aid organizations.
    And I look forward to working with that and bringing that 
multiagency approach to this task of religious freedom. I think 
that is the effectiveness that Congress is looking for that I 
certainly want to implement in this particular bill and this 
particular area.
    As I said at the outset, I am just firmly convinced, we 
have to get more focus on this by a broader cross-section, or 
we will not be effective in this. And if we are not effective 
on religious freedom, you are going to see violence continue to 
grow in many places around the world.
    So I look forward to implementing the Frank Wolf act.
    Senator Rubio. Just as an aside, and perhaps an editorial 
moment here for me, and you can agree if you would like, in 
fact, I would prefer if you did--[Laughter.]
    Senator Rubio. With that what I am about to say, but I 
think you will because we spoke about this yesterday.
    You see the plight of the Rohingya Muslims that are facing 
persecution in Burma, and I would argue that has a direct 
national security implication for the United States. To their 
credit, the leaders of that community have been very resistant 
to, and they have rejected, efforts by radical elements to 
reach out and sort of take advantage of the situation.
    That said, when a population of people anywhere in the 
world is being persecuted, mistreated and, in this case, even 
killed, they become vulnerable to outside actors showing up and 
trying to take advantage of those circumstances. It is yet 
another example beyond the humanitarian concerns of why it is 
in the national security interest of the United States to 
ensure that people around the world have an opportunity to live 
in peace and prosperity.
    It is the right thing to do morally. It is also the 
pragmatic thing to do, because that instability, that 
suffering, that violence, those humanitarian catastrophes all 
create the conditions within which radical elements and bad 
actors around the world--that is their playground. That is what 
they took advantage of in Syria, with regard to the sectarian 
abuses occurring on behalf of the Assad regime. So, again, this 
is another example of why that is so important.
    I want to now turn to Haiti for a moment, obviously a very 
important part of this nomination. I always tell nominees, if 
you are not getting a lot of questions in a hearing, that is a 
good thing.
    But I do want to ask, because it is so important to 
Florida. Haiti has such a difficult history. We know the 
struggles they have had. On the issue of Haiti, one of the 
decisions the White House and the administration will have to 
make soon is about whether or not to continue to extend 
temporary protective status.
    I am not asking you to opine on what they should do. I am 
asking you to give us insight as to what the implications would 
be if, in fact, TPS is not extended and Haiti is asked to 
assume a significant number of people over a short period of 
time.
    In your view, what would the implications of that be for 
the Haitian Government, in terms of absorbing this reentry? 
What would the implications be for them, if TPS was not 
extended and people were forced to return? What would it mean 
to the Haitian Government, to their capacity and to their 
ability to handle that?
    Ambassador Sison. Thank you, Senator, for that question.
    As we know, TPS was extended for an additional 6 months and 
is set to expire January 22, 2018. So the process is, of 
course, that under the Immigration and Nationality Act, the 
Department of Homeland Security Secretary has the authority to 
designate a foreign state for temporary protective status. But 
before a decision is made for what will happen in January 2018, 
of course, DHS will consult all relevant government agencies, 
including the Department of State, in determining whether 
conditions for TPS continue to be met in Haiti.
    Senator Rubio. I apologize. I understand the process for 
making the decision. My question is, what, in your view, would 
it mean? I am not asking you to tell me whether they should or 
should not extend it. I am just curious about your views on 
what it would mean for Haiti if, in fact, TPS is not extended.
    Ambassador Sison. Exactly, Senator. The Embassy in Port-au-
Prince is part of this process. They are contributing to a 
country conditions assessment that looks at infrastructure, 
health, sanitation services, continued ability to respond to 
disasters. So, if confirmed, I am going to want to keep the 
lines of communication open with you, Senators, and the staff.
    In terms of the implications for the U.S. partnership on 
the ground and what we are doing with Haiti, I believe that a 
number of the programs that we actually have in place now in 
terms of assisting with economic livelihoods, assisting with 
agricultural and food security, these economic growth programs, 
these educational programs, these health programs all help 
build a resilience with our Haitian partners in order to 
respond not only to the natural disasters--of course, the TPS 
was put into place after the earthquake in 2010--but also 
building the resilience for the eventual return, if this is 
determined, of approximately----
    Senator Rubio. I apologize. I have to go vote. My time has 
expired, and I know Senator Kaine has questions about Haiti as 
well. I would just say I understand, as a nominee, why you do 
not want to delve into, ``This is what it would mean to 
Haiti.''
    So I just want to say this. I think it would be difficult 
for them to absorb it, if that is the decision the 
administration makes, which I hope they do not. But if they 
did, my view is that the Embassy will have a lot of work on its 
hands, and the Government of Haiti will require a lot of 
assistance.
    So it is my advice that, if and when confirmed, as I 
anticipate you will be, that you make that argument, that, in 
essence, you guys make the decision you need to make, but if 
you decide to terminate TPS, we better step up our presence and 
our operations here, because the Haitian Government is already 
struggling with the people who are there now. Any large influx 
of returnees will strain that, and we will need to have greater 
capacity to help them meet that demand.
    Again, unsolicited advice, but I think it is good advice, 
but it is my advice, so----
    Ambassador Sison. I look forward to continuing to work with 
you, Senator. Thank you.
    Senator Kaine. I second that emotion. I think that is very 
good advice.
    Ambassador Sison, April 2017, the U.N. Security Council 
decided that the U.N. stabilization mission in Haiti, which was 
established in 2004, would come to an end later this year. I 
think on October 15, we are coming up on the date. That would 
include a full withdrawal of the mission's military component, 
which is about 2,000 personnel.
    Talk about this transition and what it might mean in Haiti. 
And is the Haitian Government sort of prepared to take on these 
responsibilities? And things that you might be able to do in 
your capacity, should you be confirmed, to help in this next 
chapter?
    Ambassador Sison. Thank you, Senator.
    Yes, MINUSTAH, U.N. stabilization force, winds down October 
15. And the very next day, October 16, MINUJUSTH, the justice 
sector support force, police only, stands up.
    And I am up at the U.S. Mission to the United Nations now 
tracking this very issue. And in conversations with the 
Department of Peacekeeping up at the U.N., I am well aware that 
the U.N. is on track, both for the timing of this transition, 
for the budgeting of this new police-only justice sector 
support mission that will focus on police development, and rule 
of law, and human rights. The locations are spread throughout 
the country appropriately, standing up civilian staff 
corrections officers, 38, to cover countrywide some of these 
pretrial detention issues that I mentioned in my opening 
statement. Individual police officers and formed police units, 
seven formed police units, the total number of police there 
between the IPOs and the foreign police units, 1,275. The 
support, the medical, aviation, legal, all of this package is 
on track.
    Combined with that, we continue our own U.S. bilateral rule 
of law and police development support. And that is also an 
important factor here.
    That U.N. vote that you mentioned, of course, was 
unanimous. And it was recognition of the success that Haiti has 
had in returning in their democratic transition after the 
elections, the recent elections, and also to the fact that the 
Haitian national police is much stronger today. And again, a 
lot of that is thanks to U.S. bilateral support that we have 
provided to stand up the force that will be up to 15,000 by the 
end of this year. We have provided, through U.S. support, 
training, equipping, and we have really partnered with the 
other donors, including the U.N., to enhance law and order on 
the ground, but also Haiti's ability to combat the scourge of 
narcotics, for example, which has become a transnational 
threat.
    So short answer to your question is that our U.S. 
partnership, but also the role that we play at the U.N., is I 
think setting this up to be a successful transition later on 
this month.
    Senator Kaine. [Presiding.] Thank you for that thorough 
answer. I appreciate that.
    Governor Brownback, quickly, you have taken some steps, or 
Kansas has during your tenure as Governor, that have been 
perceived as anti-Muslim, pulling out of the Federal refugee 
resettlement program, voicing support for the Muslim ban first 
announced by President Trump in January, signing an anti-Sharia 
law bill.
    I would like to give you the opportunity to talk about, 
because you clearly have a track record of battling for 
religious minorities in this body and elsewhere, I would like 
to have you talk about your commitment, actions in the past, 
your commitment to battle for Muslims when they are in minority 
status around the world.
    The chair's opening comments talked about the deplorable 
situation with Rohingya Muslims in Burma. The situation of Shia 
in some nations like Bahrain have raised human rights about 
their minority religious status.
    I suspect this is something that you have worked on in the 
past, and I want to give you a chance to address that issue.
    Governor Brownback. It is something I have worked on in the 
past, and I will work on it in this job, if confirmed for it, 
as well.
    I believe in the fundamental right to practice religion as 
you see fit, whoever you are, whatever your belief, if it is a 
Muslim group, if it is a Christian group, if it is Buddhist, 
Hindu, Baha'i, any, Jewish group. Whatever it is, you have that 
right. And I will fight for protection so that you will be able 
to exercise your religious freedom in peace from any government 
or group, period. That is what I have done in the past.
    The Rohingya is a terrible situation. I pushed back against 
the Government in Burma before when I was here. They were 
persecuting a tribe of people in the north that were being 
trafficked into Bangkok into a number of prostitution places.
    I worked on the Darfur Peace and Accountability Act. That 
was a Muslim, generally, population that was being persecuted 
there, and I was one of the original carriers of that bill.
    You read the International Religious Freedom report, and 
you see how much persecution there is of Muslims around the 
world, to your specific point. That is wrong. It should not 
take place. I will stand up and fight for those communities, as 
I have in the past. I will do that in the future.
    Senator Kaine. Thank you for that answer. I agree with you. 
This is foundational. It is in our First Amendment for a 
reason.
    We have a little bit of Virginia pride in Jefferson's 
authorship of the Statute for Religious Freedom that became the 
basis of the First Amendment that was drafted by another 
Virginian, Madison. And it could have been put in the Fourth or 
Fifth Amendment, but it was put up front for a reason, and it 
is so very important. And I appreciate that answer.
    And I think, with that, I think the chair gave me the 
permission to close this portion of the hearing. Other members 
may ask questions in writing. If they do, I would appreciate 
you all responding promptly. We will leave the record open 
until 5 o'clock tomorrow afternoon for members to submit 
questions. Try to respond promptly, if you can.
    And thank you again for appearing today. Congratulations on 
your nominations.
    With that, this portion of the hearing is adjourned. And we 
will wait until the return of our chair, and start a second 
hearing about the treatment of minorities in Iraq.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
           to Michele J. Sison by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Deputy Permanent Representative to the United Nations 
since 2014, I have negotiated a number of key resolutions relating to 
the protection of human rights in the U.N. General Assembly, including 
spearheading successful passage of human rights resolutions critical of 
both Iran and Syria. I also led negotiations on behalf of the United 
States that led to the U.N. General Assembly voting to establish the 
International, Impartial, and Independent Mechanism to support the 
investigation and prosecution of those responsible for violations of 
international humanitarian law and human rights violations and abuses 
in Syria. In addition, I worked to secure U.N. accreditation for the 
U.S.-based Committee to Protect Journalists, which had repeatedly been 
denied such accreditation due to the efforts of undemocratic U.N. 
member states.
    I have promoted human rights and democracy throughout my 35-year 
career as a Foreign Service officer, and have listed a number of 
additional examples below.
Sri Lanka
    As the U.S. Ambassador 2012-2014, I led our Embassy's work related 
to investigating and documenting allegations of war crimes and other 
abuses and to supporting civil society in the face of a ban by the 
former government on NGO press conferences and workshops. When 
government-sanctioned mob and police actions limited the right of 
peaceful assembly, we successfully countered the closing space for 
civil society through U.S. Embassy social media activities and a WiFi-
enabled bus to bring "citizen journalist" outreach to remote areas. Our 
Embassy's extensive documentation of human rights defender 
intimidation, targeting of members of Christian and Muslim minority 
communities, and restrictions on media freedom was credited with 
contributing to the successful passage of successive U.N. Human Rights 
Council resolutions on Sri Lanka and the creation of a U.N. fact-
finding mission.
Iraq
    As Assistant Chief Mission for Rule of Law Assistance 2011-2012, I 
oversaw a $500 million program aimed at improving access to justice, 
providing police and corrections training, and strengthening an 
independent judiciary. Our trainers integrated instruction on 
protection of human rights and counter-trafficking in persons into Iraq 
law enforcement development programs. The programs I oversaw also 
supported local NGOs and law schools in providing legal aid to 
underserved and disadvantaged populations across Iraq, including women, 
internally displaced persons, persons with disabilities, and 
minorities.
Lebanon
    As the U.S. Ambassador to Lebanon 2008-2010, I oversaw U.S. 
Government programming that supported the development and strengthening 
of civil society (including, notably in areas controlled by terrorist 
group Hizballah). Our programming also strengthened the independence of 
the judiciary and access to justice for members of vulnerable 
populations (including legal aid clinics for refugees), as well as 
inaugurated a first-ever police training program. We built Lebanon's 
judicial training institute's curriculum and infrastructure, and, 
working with Lebanese authorities, supported improvements to the 
recruitment/selection process for judicial candidates and judicial 
ethics reform.
United Arab Emirates
    During my tenure as U.S. Ambassador to the UAE 2004-2008, my 
sustained advocacy led to UAE Government action to rescue and shelter 
more than 800 child victims of human trafficking, repatriate hundreds 
of trafficking victims, and pass a law criminalizing the exploitation 
of child camel jockeys. The Department of State's Office of Trafficking 
in Persons named me the 2005 "Abolitionist Ambassador of the Year" in 
recognition of these efforts.
Earlier Tours
    As Principal Deputy Assistant Secretary in the South Asia Bureau, I 
argued successfully for increased democracy funding and programing for 
Pakistan and Afghanistan. In Cote D'Ivoire as political counselor in 
the 1990's, I brought in new U.S. elections assistance programming and 
lobbied successfully for the first-ever international elections 
observers. As a young desk officer for Nicaragua in the 1980's, I 
developed a reliable data base on the country's human rights record. 
And in my first Foreign Service tour--Haiti--I was responsible for the 
Embassy's human rights reporting 1982-1984. This included visiting 
activists under house arrest and reporting on their conditions in order 
to show visible support for the important work of these human rights 
defenders.


    Question 2. What are the most pressing human rights concerns in 
Haiti today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Haiti? What do you 
hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Haiti include the 
trafficking issues related to an estimated 286,000 children working in 
domestic service; the chronic prolonged pretrial detention problem; 
squalid prison conditions; corruption; weak rule of law; and violence 
against women.
    If confirmed, I will work with the Government of Haiti, civil 
society, international partners, and religious leaders to 
institutionalize the rule of law and uphold more transparent, 
accountable institutions to improve the future of Haitian citizens. Our 
U.S. Embassy team will continue to build the capacity of Haiti's 
National Anti-Trafficking Committee and Child Welfare Agency to prevent 
child exploitation. I will also work to create public messaging about 
the benefits of children being raised at home with their families. We 
will continue to support an innovative three-year alliance with the 
Government of Haiti for the protection of children, to reduce violence 
against children, mitigate human trafficking, including forced labor of 
children, protect unaccompanied and separated children, and explore 
alternative care and protection services for children through pilot 
interventions. We will also continue to work with local NGOs and the 
Government of Haiti to raise awareness about trafficking risks in 
Haitian orphanages.
    In addition, through the justice system strengthening program our 
USAID colleagues will continue to be a partner to Haitians building a 
professional, accountable, and modern justice system. I will support 
USAID programs that support justice and legal aid. Since 2011, USAID 
interventions have helped provide legal aid for over 24,000 
individuals. Our State Department Bureau of International Narcotics and 
Law Enforcement (INL) has spent decades working with the Haitian 
National Police, and is helping make badly-needed administrative and 
organizational reforms to improve conditions for Haiti's prison 
population. In addition, through our PEPFAR, INL, and USAID programs, 
we are training law enforcement officials to better investigate gender-
based violence, improving women's access to medical treatment, and 
empowering women to play a larger role in government and civil society 
to raise the national profile of the challenges they face.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Haiti advancing 
human rights, civil society and democracy in general?

    Answer. Political instability, corruption, and weak rule of law are 
all major challenges to sustained human rights improvements in Haiti. 
Today, after two years of political impasse, Haiti has a 
democratically-elected government and a window of opportunity to 
implement democratic reforms to ensure that constant political crises 
no longer threaten to derail Haiti's future. Yet only 20 percent of 
Haitians turned out for the most recent Presidential elections. After 
years of political strife, the trust between Haiti's Government and its 
people must be restored.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Haiti?

    Answer. I am absolutely committed to meeting with human rights, 
civil society, and other NGOs both in the United States and in 
Haiti.October 5, 2017

    Question 5. Will you and your embassy team actively engage with 
Haiti to address cases of key political prisoners or persons otherwise 
unjustly targeted by Haiti?

    Answer. While Haiti does not at present have high-profile cases of 
political prisoners, our U.S. Embassy team will remain vigilant and 
engaged with the Government of Haiti, civil society, and human rights-
defenders to protect members of Haiti's vulnerable populations.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure all agencies at the U.S. 
Embassy continue to adhere to the Department's Leahy policy to ensure 
that U.S. security assistance programs promote and advance human 
rights.

    Question 7. Will you engage with the people of Haiti on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. If confirmed, I will indeed engage personally with Haitian 
civil society on matters of human rights, including civil rights, and 
governance. I will also ensure Embassy Port-au-Prince continues to 
engage with Haitian civil society on matters of human rights, including 
civil rights, and good governance. Embassy Port-au-Prince has created 
an internal interagency democracy, human rights, and governance working 
group to ensure that all of our U.S. Embassy efforts work to 
incorporate these key U.S. values, and I intend to keep the working 
group's responsibilities a key U.S. Embassy priority.

    Question 8. What will you do to promote, mentor and support your 
staff who come from diverse backgrounds and underrepresented groups in 
the Civil and Foreign Service?

    Answer. I firmly believe that diversity of experience and 
background enhances our diplomatic and representational work as 
Department of State employees. Throughout my career, including as 
Director for Career Development and Assignments in State's Bureau of 
Human Resources (HR/CDA), I have focused on the need to promote and 
support diversity. I also worked to foster a work environment free of 
discrimination by maintaining an affirmative outreach program as HR/CDA 
director (2010-2011) and served as the mentor for a number of the 
Department's affinity group employee organizations to help strengthen 
and support diversity during that tour. If confirmed, I will build upon 
this experience to promote diversity at Embassy Port-au-Prince through 
personal mentoring and serving as a role model for the Embassy with 
respect to fairness, equity, and inclusion.

    Question 9. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will work to ensure a diverse, inclusive, 
nondiscriminatory workplace environment, making sure that any Equal 
Employment Opportunity (EEO) complaints or harassment inquiries are 
appropriately investigated and handled. I will ensure that EEO liaisons 
are provided for both U.S. and Locally Employed Staff to coordinate EEO 
counseling and training. I will also ensure that EEO refresher training 
for the mission-wide U.S. and locally employed staff and their EEO 
liaisons is available. In doing so, I will emphasize EEO and diversity 
training is mandatory for all managers and supervisors.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in Haiti?

    Answer. No.

    Question 13. Please provide your assessment of current U.N. efforts 
to address the cholera in Haiti, U.S. investments and response to 
addressing the cholera epidemic in Haiti, and your goals as Ambassador, 
if confirmed, in addressing the issue going forward.

    Answer. The United States remains deeply concerned by Haiti's 
tragic cholera epidemic and its impact. If confirmed, my goal will be 
to support the Haitian Government in its efforts to prevent, detect, 
and respond to cholera, among other diseases. To ensure sustained focus 
on this disease, the U.S. Government, through the Centers for Disease 
Control and Prevention (CDC), is helping Haiti to improve cholera 
surveillance and laboratory testing capacity. Additionally, CDC and 
USAID support investments to improve water, sanitation, and hygiene 
infrastructure and related behavior change. The U.S. Government team 
works closely with the Haitian Government and partners to ensure U.S. 
Government activities complement the Government of Haiti's Medium-Term 
Plan for the Elimination of Cholera in Haiti. Over the last seven 
years, the United States has provided more than $100 million for 
cholera detection, treatment, and prevention efforts in Haiti. This 
assistance has promoted improved water, sanitation, and hygiene 
facilities; supported the establishment and operation of cholera 
treatment centers; provided training for Haitian health care workers in 
preventing, diagnosing, and treating cholera; supported the 
establishment of a national cholera surveillance system; and provided 
cholera treatment and prevention materials.
    If confirmed, I will seek to coordinate continued U.S. bilateral 
assistance to Haiti to prevent, detect, and treat cholera among other 
communicable diseases, as well as to continue the U.S. Mission's work 
side-by-side with the Government of Haiti and other partners on the 
public promotion of safe health and hygiene practices and support to 
Haiti's overall health system. Of course, the United States recognizes 
the international community must do more, and we recognize and commend 
the United Nation's ongoing efforts to design and implement an 
assistance package for those most affected by cholera. If confirmed, I 
commit to addressing these issues directly with U.N. leadership, 
including regular contact with the U.N. Secretary General's recently-
named special envoy for Haiti, Josette Sheeran, and her team. This is 
an issue in which I have engaged as the Deputy Permanent U.S. 
Representative to the United Nations, and I look forward to continuing 
to work with the United Nations to ensure that its approach is tailored 
in a manner that best addresses the unique and pressing situation in 
Haiti.

    Question 14. Do you believe that conditions in Haiti have improved 
to the point where TPS is no longer needed for Haitian nationals in the 
United States?

    Answer. Section 244 of the Immigration and Nationality Act gives 
the Secretary of Homeland Security the authority to designate a foreign 
state for Temporary Protected Status (TPS) after consultation with 
appropriate agencies of the U.S. Government, which typically includes 
the Department of State. As the Department of Homeland Security (DHS) 
works to review Haiti's TPS designation prior to its expiration, the 
Department of State will contribute to DHS's review process. This input 
will draw upon the State Department's country and regional expertise to 
evaluate country conditions against the criteria set out in the TPS 
statute, as well as any relevant foreign policy considerations.

    Question 15. Do you assess that the Haitian Government has 
sufficient capacity and the needed policies and programs to repatriate 
more than 50,000 individuals in an orderly manner that ensures people's 
health and safety?

    Answer. Following two years of political impasse and stalled 
elections, Haiti now has a new government in place with an elected 
president, a confirmed cabinet, and a full parliament. We are 
encouraged by this progress in Haiti and believe the post-election 
stability, combined with President Moise's private sector experience, 
should lead to more effective development. The Government of Haiti is 
focused on reforms to bolster economic opportunities that will allow 
Haitian citizens to help build their country. In addition, the Haitian 
Government affirmed its commitment to ensuring that those Haitian 
citizens, who may be affected in the event that TPS is not extended, 
return to Haiti safely, with dignity, and to opportunities.

    Question 16. If the repatriation of the 50,000 Haitian TPS 
beneficiaries did not proceed in an orderly manner, what could be the 
potential negative outcome; how would it affect the people and 
government of Haiti; and how would such an outcome affect U.S. national 
interests?

    Answer. The U.S. Government through the Department of Homeland 
Security (DHS) continues to work with the Government of Haiti to ensure 
that repatriations occur in the most humane manner possible. As a long 
standing partner of Haiti, the U.S Government remains committed to the 
country's long-term security, democratic development, and economic 
growth.
    DHS consults all relevant government agencies to review the 
conditions of the country in question to determine whether conditions 
for the TPS designation continue to be met. There is no requirement in 
statute that the Secretary of State provide the Department's 
recommendation to the Secretary of DHS, although the Secretary has 
traditionally done so for countries for which there are significant 
Department of State foreign policy or national security equities.



                               __________


      Responses to Additional Questions for the Record Submitted 
      to Hon. Samuel Dale Brownback by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I was honored to help pass the Victims of Trafficking and 
Violence Protection Act of 2000 while serving in the United States 
Senate. This important piece of legislation was significant both in its 
means and its ends. Working with a thoroughly bi-partisan group of 
advocates and elected officials, we passed a bill that helped push back 
on the rising epidemic of human trafficking. There is much work still 
to be done, but this important early step allowed us to prove that 
Americans of all backgrounds and political affiliations could come 
together to promote human rights and human dignity. It helped show that 
we can, and still do, stand in united opposition to the scourge of 
human trafficking.

    Question 2. What are the most pressing human rights concerns today? 
What are the most important steps you expect to take--if confirmed--to 
advance human rights and democracy? What do you hope to accomplish 
through these actions?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights (ICCPR), which broadly encompass the freedom to 
adopt a religion or belief of one's choosing, the freedom to change 
one's beliefs, to speak about one's beliefs, teach one's beliefs to 
one's children, and to worship, individually or in community with 
others, in public or in private.
    While my focus will be on religious freedom, if confirmed, I will 
work closely with my colleagues across the State Department to promote 
respect for fundamental freedoms, human rights and democratic 
governance. It is my firm belief that protecting the panoply of rights 
enshrined in the U.S. Constitution and in the ICCPR begins with the 
protection of religious freedom which often serves as a bellwether for 
those other rights.

    Question 3. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service? What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. I have a deep respect for the institution of the Foreign 
Service and recognize the important efforts within the State Department 
to ensure that these representatives of the United States at our 
diplomatic missions abroad reflect the diversity of America. The Office 
of International Religious Freedom should, like the rest of the 
Department, foster an atmosphere of diversity and inclusion. If 
confirmed, I will take seriously my role to promote, mentor, and 
support the employees in our office as I have throughout my career.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise any concerns that I may have 
through appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests abroad?

    Answer. No.

Engaging with Diverse Religious Communities
    Question 7. Given that the position of Ambassador-at-Large for 
International Religious Freedom is responsible for promoting freedom 
and respect for all religions as a fundamental human right, how will 
you build trust, respect, and acceptance across all faiths, including 
in the Muslim communities around the world?

    Answer. Religious freedom is a universal human right of every 
individual, regardless of creed, and should never be arbitrarily 
abridged by any government. If confirmed, I will pursue all means to 
engage governments and civil society leaders to promote every 
individual's right to freedom of religion or belief. To be effective, I 
will directly consult with individuals of varying religious beliefs and 
communities to intimately understand their experiences, the challenges 
they endure, as well as their policy concerns. This includes Muslims, 
many of whom face heavy restrictions on their ability to freely 
practice their faith in many countries around the world. I would rely 
on my own professional and personal contacts, in addition to those 
established by my colleagues, to reach out to these communities, 
continue to build and maintain strong and lasting relationships, and 
collectively work towards promoting and protecting religious freedom 
for all individuals, regardless of their faith or beliefs.
    Building trust and respect with members of vulnerable religious 
communities will be critical to my success as Ambassador-at-Large, and 
if confirmed, I will prioritize this responsibility.
Interpretation of ``Religious Freedom''
    Question 8. As Governor, you supported the passage of the Campus 
Religious Freedom Bill, which became law in March 2016, which requires 
public colleges and universities in Kansas to recognize and fund 
religious student associations, even those that discriminate in their 
membership against LGBT individuals, women, African Americans, students 
with disabilities, or anyone else, so long as the student group's 
discrimination is rooted in a religious belief.

   Do you believe that a religious belief should allow a person, 
        business, or government entity to discriminate against another 
        person based on his religion, sexual orientation, race or 
        ethnicity, or disability? Do you believe that funding can be 
        granted to entities that discriminate as long as that 
        discrimination is based on religious conviction?

    Answer. I respect the fundamental right of people to hold whatever 
religious beliefs they hold; and that extends to those who hold no 
beliefs at all. But that respect cannot extend to condoning violence or 
persecution in the name of religion towards of any minority or group. 
Violence or persecution in the name of religion against members of the 
LGBT community is wrong, as is persecution or violence based on gender, 
race, faith, age, heritage, national origin, or disability.
Refugees
    Question 9. As Governor you banned state agencies in 2016 from 
assisting in the resettlement of Syrian refugees to Kansas and later 
suspended Kansas' refugee resettlement program entirely citing security 
concerns in vetting as the reason for the suspension, although we know 
the vetting procedure is stricter than any other class of those who 
seek entry into the United States, including immigrants and tourists.

   With over 65 million refugees worldwide how will you support and 
        defend the rights of refugees fleeing religious persecution and 
        oppression in the world?

    Answer. The global refugee crisis should be a concern for all of 
us. In many cases, these refugees--and internally displaced persons--
are fleeing religious persecution and discrimination or conflict born 
of repression on the basis of religious identity or association. 
Notably, however, the repression of religious freedom may not end 
simply because a refugee has left their country. If confirmed, I will 
use all means at my disposal to address the causes of forced 
displacement as they relate to the repression of religious freedom. I 
will also work to ensure that the religious freedom of refugees is 
fully protected. Doing so will require that I and my office engage the 
United Nations, governments, and civil society leaders to promote every 
individual's right to freedom of religion or belief, wherever they are. 
Given the enormity of this crisis, a focus on refugees will be a 
priority for my work.
Minorities in the Middle East
    Question 10. ISIS' brutal treatment of religious and ethnic 
minorities in the Middle East has drawn a great degree of attention 
over the last few years, including towards Yezidis, Christians, and 
Shia Muslims in areas it controlled. ISIS is also responsible for 
crimes against humanity and ethnic cleansing directed at these same 
groups, and in some cases against Sunni Muslims, Kurds, and other 
minorities.

   How do you plan on defending the rights of all groups including 
        religious and ethnic minorities in the Middle East from being 
        persecuted in the Middle East?
   In your view, should the U.S. be working towards ensuring that 
        religious minorities have a place in their home country or 
        should we instead focus on resettlement of these communities in 
        other countries?

    Answer. The right to exercise one's freedom of thought, conscience, 
and religion is a universal human right for all people. It is enshrined 
in our Constitution's First Amendment and remains a core American value 
along with the interconnected freedoms of expression and peaceful 
assembly. If confirmed, I intend to advocate both publically and 
privately on behalf of all those seeking to live their lives peacefully 
in accordance with their conscience. While limitations vary widely from 
country to country, I expect to utilize all diplomatic and programmatic 
tools available to encourage foreign governments to respect the 
religious freedom of everyone within their borders, including 
responding vigorously to persecution or victimization of members of any 
group, providing emergency assistance, encouraging and facilitating 
accountability for violations of such freedoms, promoting equality and 
diversity, and building coalitions with our international partners to 
do the same.
    I am committed to cultivating the conditions where all 
individuals--including members of religious and ethnic minorities--have 
a secure future in their countries. When needed, we should also assist 
members of all religions, ethnicities, and nationalities who are 
fleeing persecution, consistent with U.S. refugee law.
    I am deeply concerned about the plight of vulnerable religious 
minorities in Iraq, including Christians, Yezidis, and other groups. If 
confirmed, I will engage regularly with representatives of these groups 
in addition to officials in Baghdad and Erbil to hear their views and 
ideas. I will work with colleagues to help address the myriad issues--
such as security, services, governance, employment, education, and 
justice important to members of minority groups, and indeed to all 
Iraqis. Our comprehensive response to assist the victims of atrocities 
and related crimes is reflected in the recently-passed ISIS 
accountability United Nations Security Council Resolution, but must 
also include provisions to strengthen the rule of law, and provide 
humanitarian, stabilization, and recovery assistance to all conflict-
affected individuals, including members of religious and ethnic 
minority groups in Iraq. The U.S. government has supported demining 
operations, human rights programs, and other across Iraq, but has 
especially focused on traditional minority enclaves in newly liberated 
areas, including Sinjar and the Ninewa Plains. Though a significant 
amount of need-based contributions have benefitted conflict-affected 
members of minority communities, more remains to be done to enable 
their safe and voluntary return to their homes.
Rohingya
    Question 11. The brutal violence we've seen over the past month in 
Burma has left nearly 800,000 Rohingya refugees fleeing for their 
lives. The Rohingya who are a Muslim minority group in Burma have been 
persecuted for decades and this latest crisis demonstrates the 
unfortunate, but predictable, consequence of oppressing a religious 
minority denying them citizenship or options for livelihoods.

   How will you engage the government of Burma in urging them to end 
        their persecution of the ethnic Rohingya Muslims and push for 
        the recommendations offered in the Kofi Annan Commission report 
        on Rakhine?

    Answer. I am deeply disturbed by the recent reports of violence and 
human rights abuses in Rakhine State in Burma, including allegations of 
extrajudicial killings, burning of villages, massacres, and rape, by 
security forces and by vigilante groups acting alongside security 
forces.
    Rohingya Muslims in Burma have long faced discrimination and harsh 
treatment by the government, including severe restrictions on freedom 
of movement and access to citizenship, and coercive population control 
measures, including forced abortion. Since 1999, Burma has been 
designated by the U.S. government as a Country of Particular Concern 
for ``systematic, ongoing, egregious'' violations of religious freedom.
    I understand that the State Department welcomed the release of the 
final report of the Advisory Commission on Rakhine State on August 24, 
and also welcomed the Government of Burma's commitment to review and 
carry out the recommendations as quickly as possible. The continuing 
violence underlines the importance and need to implement the report 
recommendations. The United States has offered its support to the 
government as it works to address the long-term challenges addressed in 
the Commission's report, including poverty, underdevelopment, 
shortcomings in government services, as well as the need for security 
sector reform and accountability to address human rights violations and 
abuses, and better treatment of local populations, including ensuring a 
credible, transparent citizenship process for all people in Rakhine and 
lifting restrictions on freedom of movement.
    If confirmed, I intend to work to ensure that Burma's Government 
and military acts consistently with to their human rights commitments, 
to press for access for humanitarian organizations so that the survival 
and needs of those displaced by violence are being met, to hold Burma 
to its commitment that those who fled to Bangladesh are able to 
voluntarily and safely return, and to seek justice and accountability 
on behalf of the victims of these mass atrocities.
On Protection of the LGBT Community
    Question 12. In many parts of the world, we continue to see 
widespread violence and discrimination against the lesbian, gay, 
bisexual and transgender--or LGBT--community. Unfortunately, some of 
the attacks against this population come from actors, both governmental 
and non-governmental, who cite religion as the basis for their abusive 
actions. At the same time, we see religious leaders who are positively 
engaged in pushing back against such mistreatment and who are 
exhibiting leadership in support of this marginalized population.

   How will you work to ensure that the LGBT individuals are as worthy 
        of protection by religious communities, and how would you use 
        your position to help foster positive movement forward?

    Answer. If confirmed, I will continue to cooperate and coordinate 
the United States efforts to protect the rights of persecuted groups 
and minorities. The office of International Religious Freedom has 
prioritized working with State Department partners to protect the 
rights of persecuted minorities, including the LGBT community. I have 
had several productive conversations with fellow Kansan Randy Berry, 
the former Special Envoy for Human rights of LGBTI Persons. I am 
confident in our ability to work cooperatively to foster positive 
international movement.

    Question 13. After the June 2015 U.S. Supreme Court ruling making 
same-sex marriage legal in all 50 states, you issues a `religious 
objection' executive order in July 2015 allowing taxpayer-funded social 
service organizations to deny services to LGBT citizens, and 
specifically exempting all religiously affiliated organizations from 
having to recognize legal same-sex marriages or accommodate them in any 
way. Your opposition was so extreme, a federal judge put the state on 
probation and Kansas is being monitored for every aspect of the state's 
implementation of same-sex marriage for the next three years.

   Do you believe that religious conviction allows individuals or 
        governments to discriminate or deny rights to someone based on 
        his sexual orientation? What is your view on Uganda's ``Kill 
        the Gays'' law?

    Answer. I will respect the fundamental right of people to hold 
whatever religious beliefs they hold; and that extends to those who 
hold no beliefs at all. But that respect cannot extend to condoning 
violence or persecution in the name of religion towards of any minority 
or group. Violence or persecution in the name of religion against 
members of the LGBT community is wrong, as is persecution or violence 
based on gender, race, faith, age, heritage, national origin, or 
disability.
Women's Health
    Question 14. The Trump administration has stated that women's 
economic empowerment is a critical goal for our foreign aid programs. 
Access to health care, especially reproductive health care, is 
essential to ensuring women are able to participate and contribute to 
the growth of local economies.

   How will you work with colleagues in the office of Global Women's 
        Issues and Bureau of Democracy, Rights, and Labor to combat 
        religious traditions that discriminate against women and 
        undermine their full human rights and economic empowerment?

    Answer. As Secretary Tillerson said during his confirmation, 
investing in women produces a multiplier effect--women reinvest a large 
portion of their income in their families and communities, which also 
furthers economic growth and stability. Around the world, there are 
restrictions that prevent women from fully participating in in the 
economy as workers, entrepreneurs, and consumers. Such barriers range 
from inheritance rights to early and forced marriage. If confirmed, I 
will work with colleagues in the Bureau of Democracy, Human Rights, and 
Labor and the office of Global Women's Issues to ensure that women are 
able to fully exercise their religious freedom around the world.
Anti-Semitism on the Rise in Europe
    Question 15. In the last several years, there has been a steady and 
disturbing increase in attacks and acts rooted in antisemitism in 
Europe, including Jews murdered in Paris and Copenhagen, synagogues 
attacked by mobs and firebombed, and increasing Jewish emigration 
attributed to fear of more attacks.

   How will you address this disturbing trend and work within the 
        inter-faith communities in Europe to help them tackle and 
        reverse this trend and build a more secure and tolerant 
        environment or all those who reside in these communities?

    Answer. Combating anti-Semitism internationally is a priority for 
the Trump administration. If confirmed, I would denounce anti-Semitism 
and would urge governments in Europe and around the world to condemn 
anti-Semitism and to provide security for Jewish communities. I would 
work to encourage other governments and organizations to adopt a common 
working definition of anti-Semitism that covers contemporary as well as 
classical anti-Semitic acts and rhetoric. I understand that the Office 
of International Religious Freedom currently devotes significant 
resources to combatting anti-Semitism, and I am a strong supporter of 
such efforts. I would also work closely with other key officials, 
including the Special Envoy to Monitor and Combat Anti-Semitism to 
strengthen and advance our collective policy and programming 
initiatives in combatting anti-Semitism globally.



                               __________


      Responses to Additional Questions for the Record Submitted 
     to Hon. Samuel Dale Brownback by Senator Christopher A. Coons

    Question 1. LGBTQ people often face persecution in the same 
countries where religious minorities face persecution, so you will need 
to work colleagues in the Bureau of Democracy, Human Rights and Labor 
(DRL) to create a comprehensive human rights agenda that takes all 
human rights concerns into account.

   How will you work with your DRL colleagues who focus on promoting 
        the human rights of LGBTQ people abroad?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    As Secretary Tillerson said in June, the Department affirms its 
support for the human rights and fundamental freedoms of LGBTI persons. 
Dignity and equality are core American values underpinned by our 
Constitution. If confirmed as Ambassador-at-Large, I will stand up for 
the religious freedom of all persons, including LGBTI persons, and will 
work with other relevant officials throughout the Department of State 
to ensure protection for the human rights of all individuals, 
regardless of race, ethnicity, gender, gender identity, or sexual 
orientation.

    Question 2. LGBTQ people often face persecution in the same 
countries where religious minorities face persecution, so you will need 
to work colleagues in the Bureau of Democracy, Human Rights and Labor 
(DRL) to create a comprehensive human rights agenda that takes all 
human rights concerns into account.

   Are you committed to working with your colleagues on promoting the 
        human rights of all people, and not just religious minorities?

    Answer. Yes. The protection of the human rights of all persons is a 
priority of the Trump administration. President Trump has stated that 
the United States looks forward to a day when, ``people of all faiths, 
Christians and Muslims and Jewish and Hindu, can follow their hearts 
and worship according to their conscience.'' And Vice-President Pence 
has said, ``Since the founding of our nation, America has stood for the 
proposition that the right to believe and the right to act on one's 
beliefs is the right of all peoples at all times. . . .  Under 
President Trump, America will continue to stand for religious freedom 
of all people, of all faiths, across the world.''
    Freedom of religion or belief goes hand in hand with other 
universal human rights. If confirmed, as I work to promote freedom of 
religion and conscience throughout the world, I will welcome 
opportunities to work with my colleagues in support of the United 
States government's broader human rights agenda.

    Question 3. LGBTQ people often face persecution in the same 
countries where religious minorities face persecution, so you will need 
to work colleagues in the Bureau of Democracy, Human Rights and Labor 
(DRL) to create a comprehensive human rights agenda that takes all 
human rights concerns into account.

   How will you ensure that countries and development aid implementers 
        do not use ``religious freedom'' as a cover for discriminating 
        against LGBTQ people?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    While my focus will be on religious freedom, if confirmed, I will 
work closely with my colleagues across the State Department to promote 
respect for fundamental freedoms, human rights and democratic 
governance, for all people, including LGBTI persons. As Secretary 
Tillerson said in June, the Department affirms its support for the 
human rights and fundamental freedoms of LGBTI persons. The State 
Department's global policy is to oppose violence and discrimination 
targeting LGBTI persons, including from governments, and non-state 
actors such as some civil society organizations and some religious 
groups.



                               __________


      Responses to Additional Questions for the Record Submitted 
       to Hon. Samuel Dale Brownback by Senator Edward J. Markey

Chechnya LGBTQ

    Question 1. The situation facing lesbian, gay, bisexual, 
transgender and queer people in Russia can be extremely challenging. 
They often face violence and government crackdowns, with a strict 
``anti-propaganda'' law that potentially criminalizes any discussion of 
homosexuality.
    The Trump administration's response to these attacks on this 
vulnerable community has been weak. This could have dangerous 
implications for security and stability in the region. In my 
experience, raising this issue, in this committee, and with our Russian 
interlocutors sends an important signal that the United States is 
watching.
    Senator Toomey and I have a resolution pending before this 
committee condemning the abuses in Chechnya, calling on the Russian 
Government to protect its citizens, calling on our Government to demand 
the release of individuals wrongfully detained, and also to hold 
perpetrators accountable through sanctions under the Magnitsky Act.

   How do you plan to raise human rights concerns with your Russian 
        counterparts, and especially with regards to the LGBTQ 
        community, particularly with respect to Chechnya?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    The situation for religious freedom in Russia is of significant 
concern, particularly on account of authorities' broad use of anti-
extremism legislation to harass and target members of religious 
minorities, including the Government's efforts to dissolve the 
Jehovah's Witnesses community.
    While my focus will be on religious freedom, if confirmed, I will 
work closely with my colleagues across the State Department to promote 
respect for fundamental freedoms, human rights and democratic 
governance, for all people, including LGBTI persons. As Secretary 
Tillerson said in June, the Department affirms its support for the 
human rights and fundamental freedoms of LGBTI persons. The State 
Department's global policy is to oppose violence and discrimination 
targeting LGBTI persons, including from governments, and non-state 
actors such as some civil society organizations and some religious 
groups.
    We continue to follow the human rights situation in Chechnya very 
closely, including the allegations of widespread extrajudicial 
detentions and torture, and in some cases killings of LGBTI persons. In 
July, Secretary Tillerson sent a letter to Russian Foreign Minister 
Lavrov encouraging swift and independent investigations into these 
troubling allegations and urging that any perpetrators of violations be 
held accountable under Russian law. The letter from Secretary Tillerson 
followed multiple U.S. statements condemning the violence in Chechnya, 
including from U.S. Ambassador to the U.N. Nikki Haley, the U.S. 
representative to the OSCE, and the State Department Spokesperson in 
Washington. We were also proud to sign on to a joint statement of the 
Equal Rights Coalition--the first such statement from this new, like-
minded group of governments committed to equality and dignity for all--
and that statement called for a stop to the violence in Chechnya and an 
immediate investigation

    Question 2. The situation facing lesbian, gay, bisexual, 
transgender and queer people in Russia can be extremely challenging. 
They often face violence and government crackdowns, with a strict 
``anti-propaganda'' law that potentially criminalizes any discussion of 
homosexuality.
    The Trump administration's response to these attacks on this 
vulnerable community has been weak. This could have dangerous 
implications for security and stability in the region. In my 
experience, raising this issue, in this committee, and with our Russian 
interlocutors sends an important signal that the United States is 
watching.
    Senator Toomey and I have a resolution pending before this 
committee condemning the abuses in Chechnya, calling on the Russian 
Government to protect its citizens, calling on our Government to demand 
the release of individuals wrongfully detained, and also to hold 
perpetrators accountable through sanctions under the Magnitsky Act.

   If confirmed, will you commit to raising a comprehensive human 
        rights agenda that includes the concerns of the LGBTQ community 
        with your interlocutors in Russia and around the globe?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    While my focus will be on religious freedom, if confirmed, I will 
work closely with my colleagues across the State Department to promote 
respect for fundamental freedoms, human rights and democratic 
governance, for all people, including LGBTI persons. As Secretary 
Tillerson said in June, the Department affirms its support for the 
human rights and fundamental freedoms of LGBTI persons. The State 
Department's global policy is to oppose violence and discrimination 
targeting LGBTI persons, including from governments, and non-state 
actors such as some civil society organizations and some religious 
groups.
Engaging with Muslim Communities

    Question 3.As noted in a recent letter from Secretary Tillerson to 
Senator Corker, the Office of International Religious Freedom will 
assume the functions of the U.S. Special Representative to Muslim 
Communities. The Special Representative is responsible for driving the 
Secretary of State's engagement with Muslim communities around the 
world.
    In 2012, as the Governor of Kansas, you supported so-called ``anti-
sharia'' legislation prohibiting state courts and agencies from using 
foreign law. These laws are rooted in false and hateful conspiracy 
theories that sharia law will overtake U.S. law. They advance the 
divisive, distorted, and fear-based narrative that Islam is 
incompatible with American values, which serves to demonize Muslims.

   What message do you think this sends to Muslim communities around 
        the world? What impact do you think your prior support of this 
        legislation will have on your ability to engage these 
        communities?

    Answer. The American legal tradition rests on the idea that there 
is one law for everyone. It is just as important to recognize the 
autonomy of the law from any particular religious tradition as it is to 
recognize the freedom of religious organizations and religious people 
to conduct their lives according to their own beliefs, within the 
framework provided by our laws. I signed the Kansas bill with the goal 
of limiting the ability of decisions of foreign jurisdictions to 
restrict of undermine rights protected by the Kansas and United States 
constitutions.
    Overall, I believe in the fundamental freedom to practice religion 
as ones sees fit, whoever one is, whatever one's belief. If confirmed, 
I will vigorously advocate for the right to be able to exercise one's 
religious freedom without interference from the Government. I have a 
track record to support that commitment. While in the Senate, I 
supported sanctions against the Government of Burma to uphold the 
religious freedom of members of religious minority communities, 
including Muslims. The U.S. Department of State's International 
Religious Freedom report demonstrates the extent of persecution of 
Muslims around the world. I believe that persecution is wrong and 
should not take place, and I will stand up and fight for members of 
those communities in the future, as I have in the past.
    I also believe that religious leaders, institutions, and 
communities--including the approximately 1.6 billion Muslims in the 
world--can be critical interlocutors on many issues central to U.S. 
foreign policy. There is the potential to engage with religious groups 
as powerful civil society actors, influencers, and catalysts for 
positive social change and as potential partners in key areas of mutual 
concern--including advancing international religious freedom or other 
policy objectives.

    Question 4.As noted in a recent letter from Secretary Tillerson to 
Senator Corker, the Office of International Religious Freedom will 
assume the functions of the U.S. Special Representative to Muslim 
Communities. The Special Representative is responsible for driving the 
Secretary of State's engagement with Muslim communities around the 
world.
    In 2012, as the Governor of Kansas, you supported so-called ``anti-
sharia'' legislation prohibiting state courts and agencies from using 
foreign law. These laws are rooted in false and hateful conspiracy 
theories that sharia law will overtake U.S. law. They advance the 
divisive, distorted, and fear-based narrative that Islam is 
incompatible with American values, which serves to demonize Muslims.

   Given that the position of Ambassador-at-Large for International 
        Religious Freedom is responsible for promoting freedom and 
        respect for all religions as a fundamental human right, how 
        will you build trust, respect, and acceptance across all 
        faiths?

    Answer. Religious freedom is a universal human right of every 
individual, regardless of creed, and should never be arbitrarily 
abridged by any government. If confirmed, I will pursue all means to 
engage governments and civil society leaders to promote every 
individual's right to freedom of religion or belief. I will directly 
consult with individuals of various religious communities, and those of 
no faith, to understand their experiences, the challenges they endure, 
and their policy concerns. I would rely on my own professional and 
personal contacts, in addition to those established by my colleagues, 
to reach out to these communities, continue to build and maintain 
strong and lasting relationships, and collectively work towards 
promoting and protecting religious freedom for all individuals, 
regardless of their faith or beliefs. Building trust and respect with 
members of vulnerable religious communities will be critical to my 
success as Ambassador-at-Large, and if confirmed, I will prioritize 
this responsibility.
Religious Freedom and Reproductive Rights

    Question 5.As the Ambassador-at-Large for the State Department's 
Office of International Religious Freedom, you would be charged with 
safeguarding the ability for individuals to make their own decisions 
about religion and the role it plays in their lives. This includes 
reproductive choice. However, of the 95 votes you took during your time 
in Congress related to reproductive choice, you cast 94 against 
protecting a woman's right to make her own decisions about reproductive 
health care.

   Do you agree that religious freedom includes individual choices 
        about reproductive health?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    My role as Ambassador-at-Large would not concern policies related 
reproductive health. If confirmed, I will work to ensure all 
individuals, including women, are able to fully exercise their 
religious freedom around the world.
    Question 6.As the Ambassador-at-Large for the State Department's 
Office of International Religious Freedom, you would be charged with 
safeguarding the ability for individuals to make their own decisions 
about religion and the role it plays in their lives. This includes 
reproductive choice. However, of the 95 votes you took during your time 
in Congress related to reproductive choice, you cast 94 against 
protecting a woman's right to make her own decisions about reproductive 
health care.

   If confirmed, will you protect the rights of individuals to make 
        personal decisions that you may not agree with?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    If confirmed, I will work to ensure all individuals are able to 
fully exercise their religious freedom around the world.

    Question 7.As the Ambassador-at-Large for the State Department's 
Office of International Religious Freedom, you would be charged with 
safeguarding the ability for individuals to make their own decisions 
about religion and the role it plays in their lives. This includes 
reproductive choice. However, of the 95 votes you took during your time 
in Congress related to reproductive choice, you cast 94 against 
protecting a woman's right to make her own decisions about reproductive 
health care.

   If confirmed, will you protect the right of women to make their own 
        choices about their reproductive health care, including 
        protecting access to comprehensive reproductive health care 
        services?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private. If confirmed, I will work to ensure all 
individuals, including women, are able to fully exercise their 
religious freedom around the world.



                               __________


      Responses to Additional Questions for the Record Submitted 
          to Hon. Samuel Dale Brownback by Senator Jeff Merkey

    Question 1. The State Department's Ambassador-at-Large for 
International Religious Freedom is charged with monitoring global cases 
of religious discrimination, recommending policies to protect religious 
minorities around the world, and developing and implementing programs 
that promote religious freedom for all. This should include a 
responsibility to protect individuals' right to make their own 
decisions about religion and the role it plays in their lives, 
including when making reproductive choices. Do you pledge to protect 
individual's rights to make reproductive choices in your role, should 
you be confirmed?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private. My role as Ambassador-at-Large would not concern 
policies related to abortion or other questions of reproductive health. 
If confirmed, I will work to ensure all individuals, including women, 
are able to fully exercise their religious freedom around the world.

    Question 2. LGBTQ people often face persecution in the same 
countries where religious minorities face persecution, necessitating a 
comprehensive human rights agenda, one which takes all human rights 
concerns into account, not just religious freedom. As Secretary of 
State Tillerson has said, the United States supports ``the fundamental 
freedoms of LGBTI persons to live with dignity and freedom.''

   How will you work with your colleagues at the Bureau of Democracy, 
        Human Rights and Labor (DRL) who focus on promoting the human 
        rights of LGBTQ people abroad?
   How will you ensure that countries and development aid implementers 
        do not use ``religious freedom'' as a cover for discriminating 
        against LGBTQ people?

    Answer. If confirmed, my role as Ambassador-at-Large will be to 
promote the rights enshrined in Article 18 of the Universal Declaration 
of Human Rights and Article 18 of the International Covenant on Civil 
and Political Rights, which broadly encompass the freedom to adopt a 
religion or belief of one's choosing, the freedom to change one's 
beliefs, to speak about one's beliefs, teach one's beliefs to one's 
children, and to worship, individually or in community with others, in 
public or in private.
    While my focus will be on religious freedom, if confirmed, I will 
work closely with my colleagues across the State Department to promote 
respect for all other fundamental freedoms, human rights and democratic 
governance, for all persons, including LGBTI individuals. As Secretary 
Tillerson said in June, the Department affirms its support for the 
human rights and fundamental freedoms of LGBTI persons. The State 
Department's global policy is to oppose violence and discrimination 
targeting LGBTI persons, including from governments, and non-state 
actors such as civil society organizations and faith groups.



                               __________





                              NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 5, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Ron Johnson 
presiding.
    Present: Senators Johnson [presiding], Murphy, Shaheen, and 
Kaine.

            OPENING STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Good afternoon. This hearing of the Senate 
Foreign Relations Committee will come to order. This has to be 
one of the first times one of these started actually ahead of 
schedule.
    I want to welcome the witnesses, and their friends and 
family. We certainly thank you for your willingness to serve in 
this capacity.
    We gather today to consider the nominations of 
ambassadorships to Denmark and Croatia. These two European 
countries are important relationships for the United States, 
presenting both opportunities and challenges.
    Denmark and the U.S. have long had a close relationship. 
Like the U.S., Denmark is one of the founding members of NATO 
and has been a strong supporter of expanding the alliance. The 
Danish people, like many of our European allies, stood by 
America's side following the terror attacks of September 11th, 
and have made significant contributions and sacrifices to the 
war on terror in Afghanistan.
    Croatia is a success story of post-Cold War Europe. 
Emerging from the breakup of Yugoslavia and the wars that 
followed, Croatia's tremendous progress led it to join NATO in 
2009 and the EU in 2013. United States was a forceful advocate 
for Croatia's accession.
    As the highest representative of the United States to these 
countries, you will be tasked with maintaining and 
strengthening these crucial relationships.
    Before I introduce the nominees, I would like to recognize 
the distinguished ranking member for his comments.
    Senator Murphy?

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you very much, Senator Johnson.
    Welcome, both of you, to the committee. Thank you for your 
willingness to serve.
    Let me just reinforce the comments of Senator Johnson.
    This is a trying time for the United States and Europe. 
Clearly, the bonds are not as strong in this administration as 
they were in the past. Yet, whenever we have a big problem 
anywhere around the world that needs to be solved, the first 
place we turn is to Europe, to old legacy partners like 
Denmark, and to newer members, of at least the European Union 
community, in Croatia.
    So I am really eager to hear a little bit more about you 
and your background and your vision to take up these important 
posts. You will serve with some truly, truly amazing Americans 
who have chosen to dedicate their entire lives to a very, very 
difficult job of traveling the world representing our country.
    And I look forward to your testimony.
    Senator Johnson. Thank you, Senator Murphy.
    Again, I encourage the nominees to introduce their family 
and friends when you make your opening statement.
    Our first nominee is Ms. Carla Sands. Ms. Sands is the 
President's nominee to be U.S. Ambassador of Denmark. Since 
2015, Ms. Sands has been the chairman of Vintage Capital Group, 
a highly successful real estate firm in Los Angeles. She is 
also a doctor of chiropractic and has been a television and 
film actress.
    Ms. Sands is a leader in the nonprofit sector, working with 
organizations to improve the lives of children and others in 
need. She has served as a board member of Pepperdine University 
and on the boards of numerous organizations supporting the arts 
and culture.
    While she now resides in California, I understand that Ms. 
Sands is a proud daughter of Pennsylvania, having grown up 
there and still returning frequently to visit family.
    Ms. Sands?

   STATEMENT OF CARLA SANDS OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE KINGDOM OF DENMARK

    Ms. Sands. Mr. Chairman, Ranking Member Murphy, 
distinguished members of the committee, it is an honor to 
appear before you today as President Trump's nominee to be the 
United States Ambassador to the Kingdom of Denmark.
    I am humbled that the President has charged me with this 
opportunity to work with the White House, Secretary Tillerson, 
and our gifted and hardworking officers at the State Department 
and Mission Denmark to lead our engagement with such a longtime 
and trustworthy ally.
    I also want to take a moment to thank my family: my 
daughter, Allie Sands; my two sisters, who are with me today, 
Dr. Rhonda Carver and Deborah Sicchitano; and my parents. Their 
love and support has sustained me through the many phases of my 
life and the diverse hats I have worn in both the public and 
the private sector. I take this journey knowing I have their 
enthusiastic support.
    Though now a resident of California, I am a native of 
Pennsylvania and come from a long line of patriots and 
supporters of the United States. My ancestors fought in the 
Revolutionary War, Civil War, World War II, and more recently 
have served in the Air Force, Marine Corps, and U.S. Navy.
    It is with their legacy in mind that I approach my own 
government service. And if confirmed, I can assure you that I 
will carry this history with me to Denmark as well.
    If confirmed, I bring to the job of chief of mission 
experience in the business sector and the nonprofit world, as I 
have practiced as a doctor of chiropractic, and raised funds 
for abused and neglected children, the arts, the police, 
homeless rehabilitation, and many other deserving causes.
    In my younger years, I was a working actress. And since my 
husband's death in 2015, I have been the chairman of Vintage 
Capital Group.
    If I am confirmed, these varied leadership roles will serve 
me well in the different facets of chief of mission in Denmark, 
and I could not be more excited about the opportunity to lead 
this team.
    Denmark is a key ally, contributing troops and equipment to 
international operations, including the coalition to defeat 
ISIS; U.N. operations in the Middle East, Africa, and South 
Korea; and enhancing NATO's presence in the Baltic.
    Our relationship is supported by many men and women right 
here in Washington, whether it is our Denmark desk at the State 
Department or the many departments and agencies that work with 
their counterparts at Mission Denmark every day.
    This is an important time for Europe and Denmark. The 
aftershocks of Brexit combined with the threats of terrorism 
and Russia's aggressive actions make clear that we must work 
with our allies like Denmark to face these challenges together 
in a united way.
    Of course, there may be issues on which our two countries 
do not totally agree. However, our shared appreciation for 
freedom, security, and opportunity give us a mutual destination 
guiding us in our relationship moving forward.
    If confirmed, my first priority will always be the welfare 
and security of U.S. citizens and our mission staff. Beyond 
that, I will work with our outstanding leadership at Mission 
Denmark to fulfill three primary goals.
    First, I will endeavor to promote bilateral trade and 
economic prosperity. There are more than 700 subsidiaries of 
Danish companies in the United States employing over 70,000 
people. The United States is Denmark's largest trading partner 
outside of Europe, and I believe we can increase our sales of 
military aircraft and equipment, machinery, medical and 
technical equipment, and other outstanding American products.
    Second, Denmark is a trusted and dependable ally in an 
increasingly unstable and unpredictable world. It is the only 
Nordic country that is both a member of the EU and NATO, and 
our alliance with Denmark is crucial for peace and stability in 
the Nordic, Baltic, and Arctic regions.
    If confirmed, I will work with the regional commander to 
further our close military alliance with Denmark to deter 
aggressors in the region and promote stability worldwide.
    Third, and if confirmed, my goal is for our public 
diplomacy to engage with as many of the almost 6 million Danes 
as I can, including citizens in the kingdom's self-governing 
areas of Greenland the Faroe Islands.
    I hope to promote the people-to-people partnerships between 
Danes and Americans through study abroad and exchange programs, 
cultural programming, and community outreach. I plan to do so 
by blending classical engagement with new and innovative ways 
to reach all, especially young people, to continue to foster a 
close and deep mutual respect and appreciation between our two 
countries.
    Mr. Chairman, Ranking Member Murphy, and members of the 
committee, thank you for the opportunity to appear before you 
today. If confirmed, I will do my very best on behalf of our 
Nation, and I welcome any questions you may have.
    [Ms. Sands's prepared statement follows:]


                   Prepared Statement of Carla Sands

    Mr. Chairman, Ranking Member Murphy, distinguished members of the 
committee, it is an honor to appear before you today as President 
Trump's nominee to be the United States Ambassador to the Kingdom of 
Denmark. I am humbled that the President has charged me with this 
opportunity to work with the White House, Secretary Tillerson, and our 
gifted and hardworking officers at the State Department and Mission 
Denmark to lead our engagement with such a longtime and trustworthy 
ally.
    I also want to take a moment to thank my family--my daughter Allie 
Sands, my sisters who are with me today, Dr. Rhonda Carver and Deborah 
Sicchitano, and my parents. Their love and support has sustained me 
through the many phases of my life and the diverse hats I have worn in 
both the public and the private sector. I take this journey knowing I 
have their enthusiastic support.
    Though now a resident of California, I am a native of Pennsylvania 
and come from a long line of patriots and supporters of the United 
States. My ancestors fought in the Revolutionary War, Civil War, World 
War II and more recently have served in the Air Force, Marine Corps and 
U.S. Navy. It is with their legacy in mind that I approach my own 
government service. And, if confirmed, I can assure you that I will 
carry this history with me to Denmark as well.
    If confirmed, I will bring to the job of Chief of Mission 
experience in the business sector and the nonprofit world as I have 
practiced as a Doctor of Chiropractic, raised funds for abused and 
neglected children, the arts, the police and homeless rehabilitation 
and many other deserving causes. In my younger years, I was a working 
actress and since my husband's death in 2015 I have been the Chairman 
of Vintage Capital Group. If I am confirmed, these varied leadership 
roles will serve me well in the different facets of Chief of Mission in 
Denmark and I could not be more excited about the opportunity to lead 
this team.
    The Trump administration has made it clear in words and actions the 
high-priority it places on our alliance, partnership and friendship 
with Denmark. The President hosted Prime Minister Lars Lokke Rasmussen 
at the White House just two months after his inauguration. His early 
engagement with Denmark underscores the strength and importance of our 
security alliance and overall bilateral relationship.
    Denmark is a key ally, contributing troops and equipment to 
international operations including the Coalition to Defeat ISIS, U.N. 
operations in the Middle East, Africa, and South Korea, and enhancing 
NATO's presence in the Baltic. Our Embassy in Copenhagen supports one 
of our nation's closest and most mutually supportive relationships, and 
I could not be more excited about the opportunity to lead this team, if 
confirmed. Our relationship is supported by many men and women right 
here in Washington, whether it is our Denmark desk at the State 
Department or the many departments and agencies that work with their 
counterparts at Mission Denmark every day.
    This is an important time for Europe and Denmark. The aftershocks 
of Brexit combined with the threats of terrorism and Russia's 
aggressive actions make clear that we must work with our allies like 
Denmark to face these challenges together in a united way.
    Of course, there may be issues on which our two countries do not 
totally agree. However, our shared appreciation for freedom, security, 
and opportunity give us a mutual destination guiding us in our 
relationship moving forward.
    If confirmed, my first priority will always be the welfare and 
security of U.S. citizens and our Mission staff. Beyond that, I will 
work with the outstanding leadership at Mission Denmark to fulfill 
three primary goals:
    First, I will endeavor to promote bilateral trade and economic 
prosperity. There are more than 700 subsidiaries of Danish companies in 
the United States employing over 70,000 people. The United States is 
Denmark's largest trading partner outside of Europe and I believe we 
can increase our sales of military aircraft and equipment, machinery, 
medical and technical equipment and other outstanding American 
products.
    Second, Denmark is a trusted and dependable ally in an increasingly 
unstable and unpredictable world. It is the only Nordic country that is 
both a member of the EU and NATO and our alliance with Denmark is 
crucial for peace and stability in the Nordic, Baltic, and Arctic 
regions. If confirmed, I will work with the regional commander to 
further our close military alliance with Denmark to deter aggressors in 
the region and promote stability worldwide.
    Third, and if confirmed, my goal for our public diplomacy is to 
engage with as many of the almost six million Danes as I can, including 
citizens in the Kingdom's self-governing areas of Greenland and the 
Faroe Islands. I hope to promote the people to people partnerships 
between Danes and Americans, through study abroad and exchange 
programs, cultural programming, and community outreach. I plan to do so 
by blending classical engagement with new and innovative ways to reach 
all, especially young people, to continue to foster a close and deep 
mutual respect and appreciation between our two countries.
    Mr. Chairman, Ranking Member Murphy and members of the committee, 
thank you for the opportunity to appear before you today. If confirmed, 
I will do my very best on behalf of our nation and I welcome any 
questions you may have.


    Senator Johnson. Thank you, Ms. Sands.
    Our next nominee is Mr. Robert ``Bob'' Kohorst. Mr. Kohorst 
is the President's nominee to be U.S. Ambassador to Croatia. 
Mr. Kohorst is a prominent American businessman with expertise 
in law, real estate, and finance. He is President and founder 
of Everest Properties, a large commercial enterprise that 
purchases and operates properties throughout the United States.
    Mr. Kohorst has contributed to public service organizations 
and educational institutions, including as director and 
chairman of the Young Presidents' Organization and regent of 
Loyola Marymount University.
    Mr. Kohorst currently lives in California, but has strong 
Midwest ties, having earned a bachelor of science degree from 
the University of Dayton and a J.D. from the University of 
Michigan Law School.
    Mr. Kohorst, pay no attention to the 2-minute mark. You can 
read your full opening statement.

STATEMENT OF W. ROBERT KOHORST OF CALIFORNIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
               AMERICA TO THE REPUBLIC OF CROATIA

    Mr. Kohorst. Mr. Chairman, Ranking Member Murphy, and 
members of the committee, it is a pleasure and a privilege to 
appear before you today as President Trump's nominee to serve 
as the United States Ambassador to the Republic of Croatia.
    I am honored by the confidence placed in me by the 
President and the Secretary of State.
    If confirmed, I look forward to working with this committee 
and the Congress in advancing the interests of the United 
States in Croatia.
    I would like to introduce my wife, Shelley; our son Kevin 
and his wife, Kate; and our other son Matt. Two of our 
grandchildren, William and Charlotte, unfortunately, are too 
young to be here today, but we miss them.
    I am humbled at the opportunity to appear before this 
historic committee, and I look forward to starting an ongoing 
dialogue with all of you.
    Although I do not have any recent government or Foreign 
Service experience, I have enjoyed business and personal 
successes that will suit me well, if I am confirmed to 
represent the United States in Croatia. I have practiced law, 
worked for a large public company, and started my own business 
more than 20 years ago. I have learned how to manage people, 
transactions, and money in both large and small settings. I 
have been actively involved in a number of philanthropic 
organizations.
    All of this requires hard work, good judgment, strong moral 
values, and the ability to work with others. If confirmed, I am 
prepared to bring all of these skills to my new 
responsibilities. And maybe best of all, I will be supported by 
my wife, Shelley, who may be the real asset the United States 
Government is getting in this deal.
    Last summer, Shelley and I and a group of friends traveled 
throughout Croatia. We first visited the Dalmatian coast, from 
Kotor to Split. We then travelled to Zagreb, with a side trip 
to Plitvice Park, one of the truly amazing wilderness settings 
in the world. We were thrilled with the beauty of the country 
and the friendliness of the people.
    I look forward to the opportunity to spend time working 
with everyone in Croatia and building an even better 
relationship between our two nations.
    In preparing for today's hearing, I have been truly 
impressed with how well our bilateral relationship with Croatia 
has been managed. Ambassador Noyes has been a terrific steward 
of the office, and it is clear that she has a great support 
team in Zagreb.
    I look forward to working with the Embassy staff in an 
open, friendly, and cooperative manner to achieve common goals. 
My management style is to respect everyone for their 
contributions to the effort, help each employee succeed, 
promote good moral values, and insist on great work.
    If confirmed, my foremost priority as Ambassador will be 
promoting the United States' interests in Croatia and support a 
Europe that is whole, free, and at peace.
    Of course, our interests can best be achieved if they are 
compatible with Croatian interests. I intend to work hard to 
identify areas where we can mutually support each other.
    My team and I will focus on: strengthening the capabilities 
of a willing NATO ally; supporting Croatia's role in promoting 
regional stability, cooperation, and Euro-Atlantic integration; 
encouraging Croatia's contribution to regional energy security, 
while opening new markets to U.S. gas exports; and, finally, 
bolstering Croatia's economic recovery to make it a more 
attractive partner for American businesses and exporters.
    Croatia has been a strong supporter of NATO, including 
providing troops for the NATO mission in Afghanistan. I look 
forward to strengthening our support of Croatia's military and 
making sure the working relationship between the United States 
and the Republic of Croatia is a model for the region and the 
world.
    I am particularly excited for Croatia as it expands on its 
opportunities within the European Union. The country has made 
great strides since it entered the European Union in 2013, and 
I intend to do my best to assist in maintaining that progress. 
Croatia's planned accession to the Schengen Area will only help 
deepen its integration to the European community and expand 
opportunities, especially in tourism.
    Mr. Chairman, Ranking Member Murphy, and members of the 
committee, thank you for this opportunity to appear before you 
today. If confirmed, I look forward to hosting your visit to 
Croatia and to working closely with you all to advance the 
interests of the United States.
    [Mr. Kohorst's prepared statement follows:]


                Prepared Statement of W. Robert Kohorst

    Mr. Chairman, Ranking Member Murphy, and members of the committee, 
it is a pleasure and a privilege to appear before you today as 
President Trump's nominee to serve as the United States Ambassador to 
the Republic of Croatia. I am honored by the confidence placed in me by 
the President and the Secretary of State.
    If confirmed, I look forward to working with this committee and the 
Congress in advancing the interests of the United States in Croatia.
    I would like to introduce my wife, Shelley Allen, our son, Kevin, 
and his wife, Kate, and our other son, Matt. Two of our grandchildren, 
William and Charlotte, unfortunately are too young to fly here and sit 
through these hearings, but I miss having them here with us.
    I am humbled at the opportunity to appear before this historic 
committee, and I look forward to starting an ongoing dialogue with all 
of you. Although I do not have any recent government or Foreign Service 
experience, I have enjoyed business and personal successes that will 
suit me well if I am confirmed to represent the United States in 
Croatia. I have practiced law, worked for a large public company, and 
started my own business more than 20 years ago. I have learned how to 
manage people, transactions and money in both large and small settings. 
I have been actively involved in a number of philanthropic 
organizations. All of this requires hard work, good judgement, strong 
moral values, and the ability to work with others. If confirmed, I am 
prepared to bring all of these skills to my new responsibilities. And, 
maybe best of all, I will be supported by my wife, Shelley, who may be 
the real asset the United States Government is getting in this deal.
    Last summer, Shelley and I and a group of friends traveled 
throughout Croatia. We first visited the Dalmatian coast, from Kotor to 
Split. We then travelled to Zagreb, with a side trip to Plitvice Park, 
one of the truly amazing wilderness settings in the world. We were 
thrilled with the beauty of the country and the friendliness of the 
people. I look forward to the opportunity to spend time working with 
everyone in Croatia and building an even better relationship between 
our two nations.
    In preparing for today's hearing, I have been truly impressed with 
how well our bilateral relationship with Croatia has been managed. 
Ambassador Noyes has been a terrific steward of the office, and it is 
clear that she has a great support team in Zagreb. I look forward to 
working with the Embassy staff in an open, friendly, and cooperative 
manner to achieve common goals. My management style is to respect 
everyone for their contributions to the effort, help each employee 
succeed, promote good moral values, and insist on great work.
    If confirmed, my foremost priority as Ambassador will be promoting 
the United States' interests in Croatia and support a Europe whole, 
free and at peace. Of course, our interests can best be achieved if 
they are compatible with Croatian interests. I intend to work hard to 
identify areas where we can mutually support each other.
    My team and I will focus on:

   Strengthening the capabilities of a willing NATO ally.
   Supporting Croatia's role in promoting regional stability, 
        cooperation, and Euro-Atlantic integration.
   Encouraging Croatia's contribution to regional energy security, 
        while opening new markets to U.S. gas exports.
   Bolstering Croatia's economic recovery to make it a more attractive 
        partner for American businesses and exporters.

    Croatia has been a strong supporter of NATO, including providing 
troops for the NATO mission in Afghanistan. I look forward to 
strengthening our support of Croatia's military and making sure the 
working relationship between the United States and the Republic of 
Croatia is a model for the region, and the world.
    I am particularly excited for Croatia as it expands on its 
opportunities within the European Union. The country has made great 
strides since it entered the European Union in 2013, and I intend to do 
my best to assist in maintaining that progress. Croatia's planned 
accession to the Schengen Area will only help deepen its integration to 
the European community and expand opportunities, especially for 
tourism.
    Mr. Chairman, Ranking Member Murphy, and members of the committee, 
thank you for this opportunity to appear before you today. If 
confirmed, I look forward to hosting your visit to Croatia and to 
working closely with you all to advance the interests of the United 
States.


    Senator Johnson. Thank you, Mr. Kohorst.
    Let me just start out, for both nominees, you both 
mentioned, in some way, shape, or form, talking about 
bolstering economic ties. Can you talk about, in each 
particular country, Croatia and Denmark, what are the greatest 
opportunities, in terms of economic relations between our two 
countries?
    Mr. Kohorst, I will let you go first.
    Mr. Kohorst. Thank you, Senator, for that very important 
question.
    There is a tremendous opportunity in Croatia to build a 
natural gas terminal off the Island of Krk in the Adriatic. 
That program is currently in process, with an expected opening 
in 2019.
    That is an economic program that will provide three 
terrific benefits. One is it will expand the economic benefits 
and economy in Croatia. Second, it will have the potential to 
deliver energy supplies to Southeastern Europe, which has the 
potential of reducing the Russian energy influence in the area. 
And third, it is a source of export for the United States 
delivering natural gas to Southeastern Europe.
    Senator Johnson. Ms. Sands?
    Ms. Sands. Thank you, Senator, for that important question.
    My understanding is that our trade is very important to the 
present administration. Some of my goals regarding trade will 
be to open new markets to American products and to receive more 
investment in the United States from Denmark.
    So I believe that we do have a trade deficit with Denmark. 
One of my goals is to reduce that deficit through great 
American products finding their way to Denmark.
    Senator Johnson. Ms. Sands, when you were in our office, we 
were talking a little bit about the 2 percent goal, which 
neither country is meeting currently. One of the things you 
pointed out, and I think is true, and I do not think we do 
enough of this, is pointing out the fact that Denmark has also 
sacrificed its sons and daughters as a strong ally.
    Can you just talk about how we need to make that point, in 
your role as future Ambassador?
    Ms. Sands. Yes. Definitely, the President and Secretary 
Tillerson feel strongly about the member commitment to NATO of 
2 percent. While it is true that Denmark is not there yet, my 
understanding is that the Prime Minister is intending to 
increase the defense budget in the new budget from 2018 to 
2022. Of course, that is an important piece.
    But Denmark also is small but mighty. They punch above 
their weight. They give blood and treasure right alongside 
Americans. They have one of the highest rates per capita of not 
only troops but also loss of life in defending freedom and 
prosperity in the world. They have also given funds to 
Afghanistan and other countries in the world to help restore 
these countries.
    So I believe that while it is important that they give 
more, Denmark is definitely a great ally to the United States 
and to NATO, and a very close partner in defense in the world.
    Senator Johnson. Thank you.
    Mr. Kohorst, Senator Murphy and I met with Serbian 
President Vucic a couple months ago. I was just in Serbia and 
Kosovo about a month ago. I think our sense was that President 
Vucic is somebody who is willing to take some risks to help 
stabilize that region.
    I was a little disappointed to hear that the meeting 
between Serbia and Croatia was called off, I guess just 
yesterday, because of increased tension.
    Can you just kind of speak to, first of all, the imperative 
of trying to stabilize the Southeast European region, and 
particularly the crucial role that Croatia and Serbia play in 
that?
    Mr. Kohorst. Thank you, Senator.
    Croatia has been a longtime ally of the United States, a 
very strong supporter of NATO, and a source of stability in 
Southeast Asia. It is very important that the United States 
continues to encourage Croatia to work on bilateral issues of 
conflict with their neighbors, so that stability can be 
achieved for all parties.
    I was aware that the Presidents decided not to meet, but I 
have not yet been read in to any specifics of that, so I, 
unfortunately, cannot comment about why that meeting was 
canceled.
    But Croatia has shown a willingness to meet and talk with 
Serbia on the outstanding issues. There are several. There are 
legacy war issues. There are property rights issues. And there 
are some border issues that need to be resolved.
    In addition, Croatia needs to continue to support the 
population in Bosnia, and Bosnia's accession into the European 
Union. And they need to continue to work on areas where they 
can agree, so that we truly have stability in that part of the 
world.
    Senator Johnson. Thank you, Mr. Kohorst.
    Senator Kaine has to go to the same budget hearing markup 
that I am going to have to leave for shortly, so, Senator 
Kaine?
    Senator Kaine. Thank you. And thank you to my ranking 
member, Senator Murphy, for letting me jump ahead.
    I just wanted to come briefly to congratulate you for your 
nomination and to hear your statements. These are both 
important countries, and our relationships with them have been 
strong. And their membership in NATO, their commitment of 
troops in Afghanistan, the Danish commitment recently to put 
more troops in Estonia to help us deal with issues on the 
Russian border, these are important relationships.
    I will only just offer one piece of advice. I do not have 
questions.
    One of the things I do when I travel and go to embassies is 
I tell the Ambassador to depart the room, and I sit down with 
first- and second-tour of FSOs, and I congratulate them for 
having a great job and for getting through the difficult 
vetting and being selected for such an important position. Then 
I say, ``Tell me what will make the difference between you 
making this a career and maybe just doing it for a few years.''
    That is usually all I have to say to have about a 1.5 hour-
long discussion. You will be glad to know that the deal-
breakers are never, ``I don't like by Ambassador.'' But they do 
talk a little more freely sometimes when the Ambassador is out 
of the room. A lot of it is about paperwork and organizational 
structure that they feel inhibits their natural creativity and 
ability to do a good job.
    So when you come in new and they do not have any history 
with you and any complaints yet, I would encourage, especially 
with some of the younger members of the Foreign Service in each 
of your embassies, to really let them know what a wonderful 
thing it is that they have these jobs, and obviously express 
appreciation for doing them, but just ask them to share with 
you candidly the joys and frustrations of the life.
    Some of the frustrations they are volunteers for, the 
challenging travel, and sometimes being assigned to a place 
they like and sometimes not, and family sacrifices. There are 
huge challenges and frustrations, and we need to all give them 
our appreciation for that.
    But you will probably learn some things if you talk to the 
newbies especially that will help you work well and serve them 
well and serve the mission well during the course of the time 
that you are there, should you be confirmed.
    So congratulations.
    And I will hand it back. Thanks.
    Senator Johnson. Thank you. I am going to have to go to the 
same budget hearing markup as Senator Kaine, so I am going to 
have to leave now.
    Again, I want to congratulate you for your nominations. 
Thank you for your service. Thank your families for their 
service.
    I will turn it over to Senator Murphy.
    Senator Murphy. [Presiding.] Thank you very much, Mr. 
Chairman. I should have done a little bit of research about 
what power I now have as the holder of the gavel as a minority 
party member. [Laughter.]
    Senator Murphy. Let me just add my thanks to both of you 
for your willingness to serve. This is not easy, and you are 
good to do it.
    Just a few additional questions. Senator Johnson really 
picked out some of the priorities for me as well.
    Mr. Kohorst, you are, for all intents and purposes, going 
to be the first political Ambassador, political appointee to 
Croatia. Historically, this has been a career Foreign Service 
post, the exception being the first Ambassador, Peter 
Galbraith, who had a long history of experience in foreign 
policy and international affairs.
    So I just say that because I think the burden will be 
greater on you to get up to speed very quickly, because, as 
Senator Johnson referenced, the Balkans are a place where many 
global conflicts start. And it is still, in many ways, a 
tinderbox of ethnic and nationalist tensions.
    He referenced this cancellation of an important meeting 
between the Croatians and the Serbs, but the Croatians have 
also been a real thorn in the side of Serbia's desire to 
eventually join the European Union. One of the things that 
holds that region together is the aspiration of many countries 
there, particularly in the Western Balkans, to eventually be 
members of the EU.
    You may not have the answer to this question, but I will 
ask it anyway. President Trump cheered on Britain as they left 
the European Union and has put a U.S.-EU trade deal on ice. Do 
you know, going into Croatia, being in the middle of a region 
with many EU aspirants, what the administration's policy is as 
to EU enlargement, whether we are going to be asking 
Ambassadors such as yourself to work in a manner that would 
allow countries to join the EU? You are obviously going to an 
EU country, but they are often trying to stop other countries 
from joining.
    I wonder whether, in your preparation for this, you have 
been given any indication as to whether you are going to be 
going to Europe to try to help grow Europe or you are going to 
Europe to try to cheer on, not its disintegration, but those 
who might wish to leave.
    Mr. Kohorst. Thank you, Senator, for that question.
    First of all, I am aware that the Serbians and the Bosnians 
are interested in joining the European Union, and that there is 
some dispute about that. But I have not yet been briefed about 
any specific aspects about our position on that issue.
    Senator Murphy. Again, I know you well. You have been 
successful in everything you have done in your life, so I trust 
you will be successful in this endeavor as well. But I think 
you will have to be a very quick study, again, building on the 
work of some great career diplomats who have been there. So I 
wish you luck.
    Ms. Sands, let me ask you a question about that trade 
agreement that I referenced. Denmark was maybe one of the 
strongest supporters of T-TIP. This is the U.S.-EU bilateral 
trade agreement that was being negotiated in the Obama 
administration that, from what we understand, is now not moving 
forward. There is one poll showing public support at about 71 
percent.
    You were part of the President's economic council, so you 
have been in a position to give him advice. What is your 
position on the prospects of a future U.S.-EU trade agreement? 
You are going to be going to a country that is a big fan of 
that agreement and is very nervous that the prospects for that 
agreement are pretty dim today.
    Ms. Sands. Thank you, Senator, for that very important 
question.
    As you know, both the United States and Denmark hold trade 
very high. We are both trading nations and innovative 
countries.
    While it is true that this trade agreement has been paused, 
my understanding is that the administration is working through 
how they are going to proceed. And if I am confirmed to serve 
in Denmark, I will wait to hear what the President and 
Secretary Tillerson, what agreement they come to. And I will 
implement the policies of the administration.
    Senator Murphy. Thank you. I hope you are right, that we 
are going to get that trade agreement restarted. There are 
still plenty of nontariff barriers that hurt companies in the 
United States.
    Just one more question for you, Ms. Sands, on the Danes 
relationship with Russia. They have to be talking to the 
Russians, in particular because of their concerns with respect 
to the Arctic, but they have been partners with us in 
continuing sanctions against Russia with respect to their 
action in Ukraine.
    I expect that you will have orders to continue to work with 
the Danes on Russia sanctions, but I just wonder if you might 
speak for a moment about the work that you expect to be doing 
to try to make sure that Denmark and the U.S. are working in 
concert to make sure that Russia continues to pay a price for 
their invasion of Ukraine while also trying to find ways that 
we can work together, the Arctic being a good example of it.
    Ms. Sands. Thank you, Senator.
    This is a very complicated issue. While I know the 
administration is working through how this is going to go 
forward, the Russian sanctions, they are going to be very 
serious. And I look forward, if I am confirmed, to being at 
post and being fully briefed on the issues regarding the 
Russian sanctions and how it will impact both Denmark and the 
United States.
    Senator Murphy. Mr. Kohorst, let me ask you the same 
question. Croatia, obviously, is an important country with 
respect to holding European and U.S. sanctions against Russia 
together. How do you expect to work with the Croats on making 
sure that they continue to be part of a coalition that holds 
Ukraine-related sanctions together against the Russians?
    Mr. Kohorst. Thank you, Senator.
    Croatia has been a strong and important ally of the United 
States for 25-plus years. I expect that relationship to 
continue. And if confirmed, I will do my best to maintain a 
positive relationship with the Croatian Government and its 
people.
    Croatia has been fully supportive of the U.S. sanctions 
against Russia and the Ukraine. From what I understand, they 
will continue to do so.
    Senator Murphy. I was vamping, waiting for Senator Shaheen. 
So now that Senator Shaheen is here, I will let her settle 
herself and turn it over to her for a few final questions.
    Senator Shaheen. Thank you very much, Senator Murphy, for 
keeping the hearing open so that I could come over and get my 
questions in.
    Congratulations to both of you on your nominations and on 
your willingness to serve the country.
    As you know, both Croatia and Denmark are very important to 
the United States. I am sure you covered many of the questions 
that I had, but I really wanted to ask you about energy, 
because as we look at the proposals for Nord Stream II 
pipeline, obviously, there are concerns in both Croatia and 
Denmark about that pipeline and what that would mean in the 
countries.
    So as you are thinking about your role as Ambassador, 
should you be confirmed, how do you view being able to support 
your host country as they continue to keep that pipeline from 
being built and continue to address the energy issues that they 
have in each country?
    I will ask you, Mr. Kohorst, if you would like to go first 
on that.
    Mr. Kohorst. Thank you, Senator.
    Energy is a critical issue in Croatia, in the past few 
years and going forward. They are currently in the process of 
building and LNG terminal off the Island of Krk, which will 
have the potential, with the pipeline being built through to 
Hungary, has the potential to deliver substantial energy to 
Southeastern Europe, which will dramatically reduce the 
Russians' influence in that area. It provides economic benefits 
to the country of Croatia, reduces Russian influence, and has 
the potential to allow American companies to export liquefied 
natural gas to the area.
    Senator Shaheen. Ms. Sands?
    Ms. Sands. Thank you, Senator, for that question.
    The pipeline is a very important topic. Denmark is 
concerned, and so is the United States. The pipeline would go 
through Danish territorial waters. And I believe that, of 
course, I will look forward, if I am confirmed, to learning 
more about this at post, but Denmark is very progressive in 
their energy. They are, actually, I think the only EU net 
exporter of energy. And I believe that they are so innovative 
that they, along with the United States, are finding new ways 
to power Denmark.
    But as far as the Nord II, it is a complicated issue, and I 
look forward to learning more about it.
    Senator Shaheen. Thank you.
    I want to go back to Croatia, because Croatia has been very 
helpful to its neighbors in the Western Balkans, in terms of 
encouraging them in their efforts to join the EU and to look 
west and continue to support those values. I think it is 
probably more important now than it has been in the last 
several decades, perhaps since Yugoslavia broke apart, to have 
countries in the Western Balkans who are offsetting some of the 
influence from Russia.
    I noticed recently that Serbia, we have seen a big change 
in public opinion in Serbia about their interest in joining the 
EU and in their support for the West versus support for Russia.
    So as you think about your role as Ambassador, what can you 
do to continue to support Croatian efforts to work with their 
neighbors on continued EU integration?
    Mr. Kohorst. Thank you, Senator.
    Croatia joined the EU in 2013 after 10 years of going 
through the process. It is a very difficult process, but they 
were able to make changes in their society and their economy to 
satisfy the requirements for joining. I believe their 
neighboring countries, Serbia and Bosnia, are attempting to 
make those changes. To the extent that we can help that 
process, I believe that is in the United States' interests.
    So I would encourage Croatia, without interfering with the 
bilateral relationships between those two countries, to support 
the EU whenever possible.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Murphy. Thank you very much, Senator Shaheen.
    We do not have an ambassador to Hungary yet, but when we 
do, you will get to know them very well, because at the heart 
of these energy issues in the region is one of the most 
complicated energy relationships in Europe between Croatia and 
Hungary.
    We look forward to working with you to try to settle some 
of those issues around reverse gas flows, because if we put 
that LNG terminal into Croatia, it does not do much good if we 
cannot then turn that around and help out neighboring countries 
that today are dependent on Russian oil.
    Thank you both for providing us with your testimony and 
responses. The hearing record is going to remain open, Senator 
Johnson tells me to report, for 2 days until October 7 at 5 
p.m. So if you do get any questions from members of the 
committee who were not here or who were here, we hope that you 
will turn those around as fast as possible.
    Senator Murphy. And with that, as I reach for his gavel, 
the hearing is adjourned.
    [Whereupon, at 3:05 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

       Responses to Additional Questions for the Record Submitted
              to Carla Sands by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my career, I have worked in my local community 
to benefit and advance the rights of the most vulnerable and 
disadvantaged populations, such as at risk-youth. These efforts have 
been a commitment of my entire family as we have raised funds and 
personally volunteered to benefit local groups that provide support and 
healing for abused and neglected children and homeless populations.
    If confirmed, I will continue my commitment to assisting these and 
other vulnerable populations as a firm advocate for those without a 
voice, particularly women and children who have been victims of human 
trafficking.

    Question 2.  What are the most pressing human rights concerns in 
Denmark today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Denmark and, 
working in partnership with Denmark, to promote human rights around the 
globe? What do you hope to accomplish through these actions?

    If confirmed, what are the potential obstacles to addressing the 
        specific human rights issues you have identified in your 
        previous response? What challenges will you face in Denmark 
        advancing human rights, civil society and democracy in general?
    Are you committed to meeting with human rights, civil society and 
        other non-governmental organizations in the U.S. and with local 
        human rights NGOs in Denmark?

    Answer. Denmark is an important and active ally on democratic 
values and the rule of law upon which the NATO Alliance was founded, 
supporting the United States' efforts to strengthen human rights around 
the globe. Denmark is among the most generous donor nations in the 
world, providing $2.8 billion--the equivalent of nearly one percent of 
its GDP--each year in official development aid, which is allocated (in 
part) to promoting human rights and democracy. Respect for human rights 
is a core Danish value. At the same time, Denmark, in recent years, has 
drawn international criticism for the treatment of irregular migrants 
from outside Europe, and tough immigration rules and legislation to 
deter asylum seekers. If confirmed, I will continue to encourage 
Denmark to remain firmly committed to protecting human rights at home 
and abroad. And if confirmed, I will regularly engage with 
representatives from government, political parties, and nongovernmental 
organizations to stress the importance of tolerance and diversity and 
to share best practices and new ideas promoting human rights, including 
programs, at the local level.

    Question 3. Will you and your embassy team actively engage with 
Denmark to address the unjust targeting of key political prisoners and 
other persons around the world?

    Answer. If confirmed, I will work with the Danish Government to 
call out cases involving victims of politically-motivated prosecution 
and encourage their resolution in a manner that respects human rights 
and the rule of law.

    Question 4. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts to ensure that provisions of 
U.S. security assistance and security cooperation activities reinforce 
human rights?

    Answer. If confirmed, I will ensure that staff have access to 
training on Leahy Law restrictions on providing assistance to foreign 
military units that violate human rights and will ensure Embassy 
Copenhagen thoroughly vets individuals and units that it nominates to 
participate in U.S.--funded security assistance activities.

    Question 5. Will you engage with the people of Denmark on matters 
of human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. If confirmed, I look forward to strengthening the people to 
people partnerships between Danes and Americans, whether through study 
abroad or exchange programs, cultural programming, or community 
outreach. I plan to do so by blending traditional engagement with new 
and innovative ways to reach a diverse audience, especially youth, to 
continue to foster a close and deep mutual respect and appreciation 
between our two countries and to emphasize areas of shared values 
including human rights, civil rights, and governance.

    Question 6. What will you do to promote, mentor and support your 
staff members who come from diverse backgrounds and underrepresented 
groups in the State Department?

   What steps will you take to ensure that supervisors at the Embassy 
        foster an environment that is diverse and inclusive, including 
        in terms of gender, ethnicity, and other characteristics?

    Answer. As a business executive, I appreciate the importance of 
fostering diverse and inclusive teams, and understand the value of 
having minorities in leadership positions. In keeping with Secretary 
Tillerson's strong emphasis on diversity, if confirmed, I will develop 
an inclusive work environment at Embassy Copenhagen that encourages 
different perspectives, and I will ensure that all supervisors receive 
regular formal training and guidance on EEO principles, diversity, and 
inclusion.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Denmark?

    Answer. My investment portfolio includes companies that have a 
presence in Denmark. I am committed to ensuring my official actions 
will not give rise to a conflict of interest. I will divest my 
interests in those companies that the State Department Ethics Office 
deems necessary to avoid a conflict of interest, and will remain 
vigilant with regard to my ethics obligations.

    Question 10. Have there been any material changes to your financial 
assets, income, or any other information requested by the OGE financial 
disclosure form since the date you signed it? If so, please list and 
explain below, and whether you have raised them with OGE.

    Answer. I know of no significant change in my financial affairs 
since I filed my report. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest and will remain 
vigilant with regards to my ethics obligations.

    Question 11. Russia Sanctions: Unity with European partners on 
Russia sanctions is critical to their success. What is your diplomatic 
plan to build support within Denmark for stronger sanctions on Russia?

    Answer. Denmark has been a steadfast supporter of EU sanctions 
against Russia, which are designed to impose costs on Russia sufficient 
to change the Russian Government's behavior. Denmark also remains 
committed to challenging Russian influence campaigns in Europe and has 
taken part in and supported international efforts to restore Ukraine's 
integrity. If confirmed, I will work to ensure U.S. and Danish policies 
towards Russia remain closely coordinated. Close coordination with 
allies, like Denmark, is vital to ensure the sanctions effectively 
support our work in resolving the conflict in Ukraine, and to push back 
against Russian efforts to influence the domestic affairs of other 
countries.

    Question 12. Russian Malign Influence: How will you seek to boost 
resilience to Russian meddling within Danish institutions and civil 
society? What assistance priorities will you push with Danish 
counterparts to shore up resilience elsewhere in Europe?

    Answer. If confirmed, I will support a larger effort to build the 
resilience of European partners against Russia's whole-of-government 
efforts to undermine democratic processes through programs like media 
messaging, bilateral exchanges (e.g. student outreach in Denmark and 
Greenland), cultural programs, and regional networks. I will encourage 
direct government-to-government collaboration to address and push back 
on Russian influence campaigns through grant assistance, training, and 
exchange programs.



                               __________


       Responses to Additional Questions for the Record Submitted
            to Robert Kohorst by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of my career, I have been active with a 
number of charitable organizations that focus on youth, education and 
health care.
    I was a long-term board member and a 2 term President of the San 
Gabriel Valley Chapter, Boy Scouts of America, which serves thousands 
of young men. During my tenure, I was an advocate for the Boy Scouts to 
change their policies to be more inclusive.
    My wife and I have also been active supporters of Dolores Mission 
School, a Catholic grade school that supports education in the Hispanic 
community, which includes a significant immigrant population. Dolores 
Mission School has made a noticeable advancement in the number of youth 
in the community that graduate high school and go on to college. I have 
also been a long-term Trustee for La Salle High School, which has a 
mission under the Christian Brothers to provide education for an 
inclusive demographic, with a particular focus on the educating the 
poor and disadvantaged community.
    My wife and I have also been significant contributors to Huntington 
Hospital, which provides key services to all members of our community 
and is the main critical care facility in our area.

    Question 2. What are the most pressing human rights concerns in 
Croatia today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Croatia and, 
working in partnership with Croatia, to promote human rights in the 
Europe and Eurasia region? What do you hope to accomplish through these 
actions?

    Answer. Croatia is still addressing issues related to the wars that 
followed the breakup of Yugoslavia in the 1990s. Some of these legacy 
issues continue to have human rights implications. Although the 
government generally tries to address these issues, relations with 
members of ethnic minorities-most notably the Serb community-could be 
better. Isolated instances of anti-Serb protests and the vandalizing of 
Serb churches and monuments have occurred. Some extreme elements of 
Croatian society have engaged in sporadic anti-Semitism or Holocaust 
revisionism. The recent controversy surrounding the placement of a 
veteran's group plaque bearing an Ustasha-era slogan near the World War 
II-era Jasenovac concentration camp and a lack of progress in resolving 
the property restitution claims of Croatian Jews or their descendants 
highlight the need for more resolute, timely action by the government.
    Promoting human rights and democratic governance is a core element 
of U.S. foreign policy. Fortunately, we have a willing partner in the 
current Croatian Government, although our priorities in Croatia and the 
region may, at times, differ. As a party to a number of UN human rights 
treaties, including the International Covenant on Civil and Political 
Rights and the European Convention on Human Rights, and having met 
human rights-related criteria during its accession to the European 
Union, Croatia has undertaken obligations to uphold human rights and 
democratic ideals.
    If confirmed, I will remind the Croatian Government of such 
obligations when needed. I will also cooperate with the Government in 
the promotion of human rights and democracy in the region, notably in 
constructively supporting democratic and electoral reform efforts in 
Bosnia and Herzegovina and resolving war legacy and other contentious 
issues with Serbia. Through these actions I hope to contribute to 
regional stabilization and respect for human rights and democracy, and 
to the deepening of European and Euro-Atlantic integration.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Croatia advancing 
human rights, civil society and democracy in general?

    Answer. As I mentioned, some of the human rights-related issues in 
the Balkans are linked to historical events, going back in some cases 
to the Second World War. These deep-seated legacy issues often require 
cultural, and even generational, change to fully resolve. If confirmed, 
I may encounter some resistance when addressing these issues in my 
public role as Ambassador to Croatia, but addressing such issues is 
something I intend to do.
    If confirmed, I look forward to engaging with the young people of 
Croatia, whose youth was not shaped by war and who look forward to 
Croatia's bright future in the European Union. I will leverage cultural 
and educational exchange programs, person-to-person ties and our 
outstanding relationship with the Croatian government to further 
promote human rights and respect for democracy.

    Question 4. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Croatia?

    Answer. Yes, I am committed to meeting with and supporting civil 
society organizations who work in the promotion of democracy and human 
rights in both the U.S. and in Croatia.

    Question 5. Will you and your embassy team actively engage with 
Croatia to address the unjust targeting of key political prisoners and 
other persons around the world?

    Answer. If confirmed, I will address such practices in my role as 
U.S. Ambassador to Croatia, and my Embassy team will continue to 
execute U.S. Government policy to help resolve significant cases of 
political persecution.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts to ensure that provisions of 
U.S. security assistance and security cooperation activities reinforce 
human rights?

    Answer. As our security cooperation with Croatia has expanded over 
recent years, our Embassy has executed a significant International 
Military Education and Training (IMET) program ($1.1 million last year, 
$850K for FY 2018). This means they send security force personnel from 
the Croatian military to mutually-beneficial training programs in the 
U.S. and elsewhere. As part of the nomination process for such 
training, candidates are vetted by several offices in the Embassy to 
ensure that no assistance is provided to members of security force 
units credibly implicated in gross human rights violations, in 
accordance with the Leahy Law. Several past courses executed through 
the IMET program focused on human rights and international humanitarian 
law; these courses supported the spirit of the Leahy Law by promoting 
human rights in our security partnerships. If confirmed, I will ensure 
the Embassy continues properly vetting candidates per existing 
Department policy, in close coordination with the Department's Office 
of Democracy Human Rights and Labor. I will continue to include the 
subject of human rights in the dialogue of our security partnership.

    Question 7 Will you engage with the people of Croatia on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. Yes, I am committed to meeting with and supporting civil 
society organizations and Croatian citizens who work in the promotion 
of democracy and human rights in both the U.S. and in Croatia.

    Question 8. What will you do to promote, mentor and support your 
staff members who come from diverse backgrounds and underrepresented 
groups in the State Department?

    Answer. Embassy Zagreb already works actively to promote and 
support staff members from diverse backgrounds, and if confirmed I 
intend to continue those efforts. The first step in promoting diversity 
in the State Department is recruitment; building a workforce that 
reflects our nation's broad diversity is a top priority of the 
Department and one I share. In accordance with this guidance, Embassy 
Zagreb recruits from a diverse, qualified group of potential applicants 
to secure a high-performing workforce drawn from all segments of 
society. The mission welcomes and recruits diversity in all forms, 
including gender, ethnicity, and sexual orientation. Senior leaders in 
the embassy mentor and support staff members through various means. 
Embassy Zagreb also promotes diversity and inclusion through its active 
First and Second Tour Officer group and Federal Women's Program. If 
confirmed, I pledge to continued support of these efforts.

    Question 9. What steps will you take to ensure that supervisors at 
the Embassy foster an environment that is diverse and inclusive?

    Answer. I will ensure Embassy Zagreb continues to cultivate a 
culture that encourages collaboration, flexibility, and fairness. 
Transparency in decision-making is an essential part of ensuring 
diversity and inclusion. I understand the mission likewise promotes a 
diverse and inclusive environment that attracts new talent from diverse 
backgrounds, enhances professional development, and encourages 
supervisors to value and respect unique perspectives. If confirmed, I 
will continue to honor those principles.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in Croatia?

    Answer. No.

    Question 13. Have there been any material changes to your financial 
assets, income, or any other information requested by the OGE financial 
disclosure form since the date you signed it? If so, please list and 
explain below, and whether you have raised them with OGE.

    Answer. My financial condition, income and other information 
requested by OGE has not changed in a material way since that date I 
signed my financial disclosure form. Although I would not characterize 
these changes as material to my overall financial condition, please 
note that I have sold a significant number of the assets requested to 
be sold by the Ethics Agreement I signed. All of the proceeds of such 
sales have been deposited in money market accounts. Upon confirmation, 
I will sell the remaining assets requested to be sold pursuant to the 
terms of the Ethics Agreement.

    Question 14. Croatia's relations with neighboring Bosnia and 
Herzegovina have always been delicate, and in recent weeks have taken a 
downturn. While formally respecting its neighbor's territorial 
integrity, Zagreb is not as helpful as it could be in countering the 
unhelpful positions of Bosnian Croat political leaders that block 
needed reforms to improve effective government, to remove ethnicity as 
dominant and discriminatory forces in politics to fight corruption. The 
stability and sovereignty of Bosnia, of course, has been a priority of 
concern for the United States and for Europe. What plan of action do 
you have to encourage Croatia to be a more positive partner in helping 
to bring about change in Bosnia?

    Answer. If confirmed, most immediately, I will urge Croatian 
leaders to use their influence with Bosnian Croats to gain support for 
electoral reforms consistent with the Dayton framework of one state, 
two entities, and three constituent peoples (Bosniaks, Croats and 
Serbs), and with European Court of Human Rights decisions which Bosnia 
and Herzegovina (BiH) must implement. Longer term, Croatia can play an 
important role by supporting the accession of BiH to the EU and NATO--
steps which would have a stabilizing effect on the entire region. I 
will encourage Croatia to continue to work with BiH on the technical 
aspects of EU and NATO accession, including sharing its own lessons 
learned, and to support political reforms that move BiH further along 
the path toward accession.

    Question 15. Croatia, like many countries in Europe, has a Romani 
population that faces various and widespread forms of discrimination, 
in particular in regard to education. The State Department also reports 
a rise in anti-Serb and anti-Semitic incidents in recent years. As 
Ambassador, how will you engage in outreach to Roma and other minority 
groups in Croatia to determine how the United States can actively 
assist in supporting tolerance and non-discrimination efforts across 
the country, including improving conditions and living standards for 
the Roma?

    Answer. As in many other European states, Roma face challenges in 
Croatia. Discrimination occurs and Roma are generally disadvantaged in 
their access to education, housing, employment and even documentation 
of citizenship. According to the Council of Europe, as few as 6.5 
percent of Roma in Croatia are in formal employment. Full equality for 
Roma will remain a challenge, but as the Department reported in 
previous years' Annual Human Rights Reports, the Government of Croatia 
has taken positive steps forward. For instance, the Government has 
financially supported Romani integration initiatives, applying state 
and EU funding to educational, occupational, linguistic and housing 
programs, and subsidizing businesses that formally employed Roma.
    Isolated instances of anti-Serb protests and the vandalizing of 
Serb churches and monuments have also occurred. Some extreme elements 
of Croatian society have engaged in sporadic anti-Semitism or Holocaust 
revisionism. The recent controversy surrounding the placement of a 
veteran's group plaque bearing an Ustasha-era slogan near the World War 
II-era Jasenovac concentration camp and a lack of progress in 
addressing the property restitution claims of Croatian Jews or their 
descendants highlight the need for more resolute, timely government 
action.
    Promoting human rights and democratic governance is a core element 
of U.S. foreign policy. If confirmed, I will engage directly with the 
leaders of minority communities to hear about their concerns and the 
status of the groups they lead. I will ensure embassy outreach, 
programs, and exchanges include representatives from minority 
communities. And, I will encourage the Croatian Government to continue, 
or expand, initiatives that work towards the integration of Romani 
communities and the improvement of relations with other minority groups 
in Croatian society.
Russia Sanctions

    Question 16. Unity with European partners on Russia sanctions is 
critical to their success. What is your diplomatic plan to build 
support within Croatia for stronger sanctions on Russia?

    Answer. If confirmed, I will be committed to working closely with 
the Government of Croatia to maintain unity on Russia sanctions and 
their implementation. The U.S. Government has employed a collaborative 
and consultative approach on sanctions, which Croatia has strongly 
supported. Croatian Prime Minister Andrej Plenkovic was an outspoken 
critic of Russia's occupation of Crimea during his time in the European 
Parliament, and his second official foreign visit was to Ukraine, 
drawing intense Russian criticism. I will engage high-level Croatian 
officials to ensure they understand they must fully implement existing 
sanctions and maintain strong EU support for sanctions, including the 
Countering American Adversaries Through Sanctions Act recently passed 
by Congress. As a NATO and EU member, and a country that strongly 
supports the transatlantic relationship, Croatia can play a more active 
role in ensuring the EU responds decisively to Russian influence and 
aggression in the region. Close coordination with our allies is crucial 
to enabling the sanctions to achieve their ultimate goal: imposing 
costs on Russia sufficient to change the Russian Government's behavior.
Russian Malign Influence

    Question 17. How will you seek to boost resilience to Russian 
meddling within Croatian institutions and civil society? What 
assistance priorities will you push with Croatian counterparts to shore 
up resilience elsewhere in Europe?

    Answer. If confirmed, I will continue and expand exchange programs 
that highlight the importance of a vibrant civil society, independent 
press, and government transparency. As an EU member, Croatia is not 
eligible for most U.S. foreign assistance, but Croatia is a recipient 
and also a co-leader in our regional rule of law training program, 
which brings prosecutors and judges from around the region together to 
learn how to fight corruption and protect human rights. If confirmed, I 
will push to continue this program and maximize Croatia's 
participation. I will explore opportunities to provide targeted 
assistance that helps mitigate Croatia's vulnerabilities to Russian 
pressure, as is evident in the $1,000,000 in technical support we are 
providing to facilitate the development of a planned liquefied natural 
gas (LNG) terminal at Krk Island. This assistance will address key 
components of the terminal's pre-development phase, helping to ensure 
its timely completion and, in doing so, enabling greater European 
energy security through diversified gas supplies. I will also work with 
Croatian leaders to accelerate their transition to NATO-interoperable 
weapons systems, in order to reduce Croatia's dependence on Russia-
maintained equipment. Finally, I will encourage Croatian officials and 
institutions to share their successful EU integration experience with 
their neighbors, by growing as a donor and by partnering with the 
United States through mechanisms such as the Emerging Donors Challenge 
Program.



                               __________





                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, OCTOBER 18, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:00 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Johnny Isakson, 
presiding.
    Present: Senators Isakson [presiding], Gardner, Young, 
Shaheen, Murphy, and Kaine.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. I call this meeting of the Senate Foreign 
Relations Committee hearing together.
    And we welcome our testimony today from those who are here 
to give it.
    And I want to welcome Jeanne Shaheen, who will be serving 
as my co-chair of this hearing.
    I appreciate the other members that are here and that will 
come.
    This is a very important hearing, particularly the people 
in front of us because we are talking about all of you, and we 
are going to give you a chance to talk about yourself. But it 
is important to the country as well because you have been 
nominated for positions that are extremely important to 
represent the United States of America as principal legal 
adviser to the U.S. Department of State on legal matters, U.S. 
economic, political, and security interests of international 
economic policies that mandate open markets, and ensuring 
safety and security of our diplomats in 275 United States 
posts.
    Our first nominee today is Thomas L. Carter of South 
Carolina, next to my home State of Georgia. We welcome you, Mr. 
Carter. He will be representing the United States on the 
Council of the International Civil Aviation Organization with 
the rank of Ambassador. A tremendous post. And Mr. Carter has 
tremendous experience as a pilot in the military, a pilot 
commercially, and a private pilot as well. And we welcome you 
here and your family that are here today.
    Ms. Jennifer Newstead has been nominated for Legal Adviser 
of the Department of State. Ms. Newstead is a partner in the 
law firm of Davis Polk and Wardwell where she has a global 
practice representing clients in cross-border regulatory 
enforcement and litigation matters. It sounds like you are well 
qualified for the State Department.
    Ms. Newstead previously served as General Counsel of the 
Office of Management and Budget, Principal Deputy Assistant 
Attorney General in the Justice Department Office of Legal 
Policy, and Associate Counsel to the President. She also 
clerked for Justice William Breyer, United States Supreme 
Court, and is a graduate of Yale University and Harvard 
University, two pretty well known schools in the Northeast that 
do not just let you out easy.
    Ms. Manisha Singh is nominated to be Assistant Secretary of 
State for Business Affairs and Economic Affairs. Ms. Singh is 
Chief Counsel and Senior Policy Advisor to the U.S. Senator Dan 
Sullivan. Is Dan here? I will make sure and introduce him when 
he gets here. Dan is a tremendous member of the United States 
Senate representing the State of Alaska, and she worked with 
him. She worked with a fine Senator, and she must have done a 
fine job because he is pretty temperamental about stuff like 
this. I will call on him when he gets here for sure, I promise.
    She earned an LLM in international legal studies from 
American University College of Law and a juris doctorate from 
the University of Florida College of Law and bachelors of 
administration from the University of Miami.
    Mr. Michael Evanoff is nominated to be Assistant Secretary 
for Diplomatic Security. Mr. Evanoff is Vice President of Asset 
Protection and Security in international stores of Walmart 
stores, a position he has held since 2014. And if anybody has 
had experience in security in retail, it would be somebody 
representing Walmart. He has already told me that he helped 
them open a store in Nigeria, a place if any of you have ever 
been, you understand how important security is. Nigeria is a 
place you really need to have security. So we welcome you being 
here today and look forward to hearing your testimony.
    Mr. Evanoff is Vice President of Asset Protection and 
Security at International Walmart stores, and he has held that 
position for the last 5 years.
    Previously he served as Chief Security Office at Coca-Cola, 
an Atlanta company which I am very proud of, in Switzerland and 
Greece and a Special Agent in the Bureau of Diplomatic Security 
from 1985 to 2011, holding senior posts with the Overseas 
Security Advisory Council, NATO Office of Security position, 
the State Department, and details of eight United States 
missions overseas.
    He also was a diplomatic security officer for the United 
States European Command in Germany.
    It is a pleasure for me to recognize my ranking member, who 
will co-chair this hearing with me, Ms. Jeanne Shaheen from New 
Hampshire, for any remarks you may have.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Just to thank all of you for your 
willingness to serve. Congratulations on your nominations, and 
we look forward to hearing from you.
    Thank you, Mr. Chairman.
    Senator Isakson. In the introduction, I have pretty much 
introduced all of you and your backgrounds. So I am going to 
leave the rest of it for you to say about yourself except to 
tell you the following. You will have up to 5 minutes to tell 
us your story. Your prepared remarks will be submitted for the 
record and made permanent, as will any responses you have to 
make today. We thank you for your willingness to serve your 
country.
    After your opening testimony, we will open it the floor for 
the members of the committee to ask any questions that they 
might have.
    We will start with you, Mr. Carter. Welcome.
    And by the way, please introduce any family members that 
are here or acknowledge them if they are here.

STATEMENT OF THOMAS CARTER, OF SOUTH CAROLINA, FOR THE RANK OF 
 AMBASSADOR DURING HIS TENURE OF SERVICE AS REPRESENTATIVE OF 
      THE UNITED STATES OF AMERICA ON THE COUNCIL OF THE 
           INTERNATIONAL CIVIL AVIATION ORGANIZATION

    Mr. Carter. Yes, sir. Well, I am very honored today to have 
Ms. Mary Graham from Charleston, South Carolina, joining me 
here and the leading lady of my life.
    Chairman Isakson, Ranking Member Shaheen, and members of 
the committee, it is truly an honor for me to appear before you 
today as President Trump's nominee for United States 
Representative to the Council of the International Civil 
Aviation Organization, or ICAO as it is commonly known. I am 
very grateful to the President, Secretary Tillerson, and 
Ambassador Haley for their confidence and support. And I must 
admit that I have attended many hearings like this over the 
years, but it is truly humbling to finally be the nominee at 
the table.
    Mr. Chairman, since its creation at the Chicago Convention 
in 1944, ICAO has been a critical partner of the United States 
in efforts to promote the development of our crucial aviation 
industry and keep pace with the evolution of its safety and 
security requirements. Throughout its existence, ICAO has 
served as an effective forum in which the nations of the world 
can find common approaches to complex aviation challenges, such 
as emerging technologies, airspace management and air 
navigation, and environmental issues including aircraft noise 
and engine emissions.
    Unfortunately, over the past decades, we have witnessed an 
increase in terrorism, cyber attacks, and the rapid spread of 
pandemic disease, all of which have emerged to threaten civil 
aviation. ICAO is working to mitigate these threats but it can 
and must do more. ICAO's member states look to the United 
States for leadership on these and other aviation-related 
issues, and if confirmed, I will reinforce that leadership to 
promote American national security and strengthen aviation 
safety.
    Certainly, if anyone ever nominated for this position could 
fully appreciate the value of such a concept, I hope that it 
might be me. My life of 65 years has been a unique combination 
of military and civilian flying, key positions dealing with 
national security policy, and private sector experience 
relating to aviation-related products.
    I had the incredible experience as an Air Force pilot to 
command heavy jets internationally wile flying both numerous 
peacetime humanitarian missions, as well as into an active 
combat zone with dozens of paratroopers aboard. Later, when 
realizing my Air Force Reserve flying career might be coming to 
an end, I signed on to USAirways where I flew three separate 
aircraft types and eventually upgraded to captain of the Boeing 
737.
    Interspersed with this flying, I had the incredible 
experience to serve Republican Leader Bob Dole as a staffer 
dealing with national security issues. Those Senate years were 
absolutely some of the most rewarding of my life, and I 
coordinated critically important issues between the Senate 
leadership, Armed Services, Appropriations, and yes, this very 
committee chaired by Senator Pell.
    In my most recent work, I was very active with the major 
associations dealing with international and domestic aviation 
issues and, due to my personal flying experiences mentioned 
earlier, was frequently sought out for expertise on policy 
positions.
    All of this to say is that, if confirmed by this committee, 
I hope that my life's work has prepared me to represent this 
great country and all of you in a very dignified and 
knowledgeable manner.
    Mr. Chairman, thank you for this opportunity to answer any 
questions your committee members might have. Thank you.
    [Mr. Carter's prepared statementy follows:]


                 Prepared Statement of Thomas L. Carter

    Chairman Isakson, Ranking Member Shaheen and members of the 
committee, it's truly an honor for me to appear before you today as 
President Trump's nominee for United States Representative to the 
Council of the International Civil Aviation Organization or ICAO as 
it's commonly known. I'm very grateful to the President, Secretary 
Tillerson, and Ambassador Haley for their confidence and support, and I 
must admit that I've attended many hearings like this over the years 
but it's truly humbling to be an actual nominee.
    I'm accompanied today by some very significant people to me 
personally and none is more important than the leading lady in life, 
Mary Graham, of Charleston, SC. I also have three other particularly 
dear friends from my Senate days of old who, although we're evenly 
divided between Democrats and Republicans, we have remained close 
friends and confidants for over 30 years. They're very special to me so 
I'd like to introduce Ann Sauer, Charlie Smith and Jane Mattias. They, 
along with Mary, are my most reliable friends and advisors.
    Since its creation at the Chicago Convention in 1944, ICAO has been 
a critical partner of the United States in efforts to promote the 
development of this crucial industry and keep pace with the evolution 
of its safety and security requirements. Throughout its existence, ICAO 
has served as an effective forum in which the nations of the world can 
find common approaches to complex aviation challenges, such as emerging 
technologies, airspace management and air navigation, and environmental 
issues including aircraft noise and engine emissions. Over the past 
decades, we have witnessed an increase in terrorism, cyberattacks, and 
the rapid spread of pandemic disease, all of which have emerged to 
threaten civil aviation and our national safety and security. ICAO is 
working to mitigate these threats but it can and must do more. ICAO's 
member states look to the United States for leadership on these and 
other aviation related issues, and if confirmed, I will reinforce that 
leadership to promote American national security, strengthen aviation 
safety and security, and enhance protections for travelers.
    ICAO's breadth and purpose is best illustrated through the preamble 
written to establish the ICAO during the Chicago Convention of late 
1944, the member states quoted ``it is desirable to avoid friction and 
to promote that co-operation between nations and peoples upon which the 
peace of the world depends.''
    Certainly, if anyone ever nominated for this position could fully 
appreciate the value of such a concept, I hope that it might be me. My 
life of 65 years has been a unique combination of military and civilian 
flying, key positions dealing with national security policy and private 
sector experience relating to aviation- related products and 
capabilities.
    I had the incredible experience as an Air Force pilot to command 
heavy jets internationally while flying both numerous peacetime 
humanitarian missions as well as into an active combat zone with dozens 
of paratroopers aboard. My special operations experience included 
dropping Delta Team members from altitudes in excess of 20,000 feet and 
Navy Seals in the water at night off the coast of foreign countries. 
These were some of the most important flights of my aviation career. 
Later, when realizing that my Air Force Reserve flying career might be 
coming to an end, I signed on to USAirways where I flew three separate 
aircraft types and eventually upgraded to Captain on the Boeing 737.
    Interspersed with this flying, I also had the incredible experience 
to have served Republican Leader Bob Dole as a staffer dealing with 
national security issues. Those Senate years were absolutely some of my 
most rewarding of my life as I coordinated critically important issues 
between the leadership, Armed Services, Appropriations and yes, this 
very committee, then lead by Senator Pell.
    Ironically, I then lead Chairman Pell, Ranking Member Helms and 
many other of your committee members to the Persian Gulf one month 
after Saddam Hussein invaded Kuwait in August of 1990 as a Deputy 
Assistant Secretary of Defense. Getting off a helicopter in the middle 
of the afternoon in the Saudi desert where the temperature was 125 
degrees is forever seared into my memory, and I would add, the soles of 
the penny loafers I was wearing as well.
    In my most recent work in the private sector, I was very active 
with the major associations dealing with international and domestic 
aviation issues and due to my personal flying experiences mentioned 
earlier, was frequently sought out for expertise on policy positions.
    All of this is to say that, if confirmed by this committee, I hope 
that my life's work since leaving Memphis, Tennessee in 1975 as a 
first-generation high school and college graduate has prepared me to 
represent this great country and all of you in a dignified and 
knowledgeable manner.
    Mr. Chairman, thank you for this opportunity to answer any 
questions your committee members might have of me.


    Senator Isakson. Thank you, Mr. Carter.
    Ms. Newstead?

  STATEMENT OF JENNIFER GILLIAN NEWSTEAD, OF NEW YORK, TO BE 
            LEGAL ADVISER OF THE DEPARTMENT OF STATE

    Ms. Newstead. Well, thank you, Chairman Isakson and Ranking 
Member Shaheen and members of the committee. It is an honor to 
appear before you as the President's nominee to serve as Legal 
Adviser to the Department of State. I want to thank President 
Trump and Secretary Tillerson for their confidence in me.
    Several members of my family are here today: my husband, 
Alexander Mishkin; our children, Henry and Charlotte Mishkin, 
of whom we are both very proud.
    Senator Isakson. A good looking group. [Laughter.]
    Ms. Newstead. Thank you, Mr. Chair.
    And my parents, Dr. Gillian Maclaine Newstead and Dr. 
Graham Newstead, and my sister, Dr. Caroline Maclaine, are all 
here as well.
    As a personal introduction, I was born on an Army base 
where my father was stationed as a doctor during the Vietnam 
War. My mother has spent her medical career pioneering new 
technologies to diagnose cancer in women. And though I am the 
first lawyer in my family, I am actually the third generation 
of women to pursue a professional career. My grandmother, who 
was born in 1914, was also a doctor. So my family's example has 
inspired me to seek out opportunities for public service 
throughout my career.
    If confirmed, it would be my honor to lead the team of more 
than 250 career lawyers and professionals who make up the 
Office of the Legal Adviser, a group that is deservedly 
recognized as the most talented collection of international 
lawyers in the world. The mission of the office is simple but 
critical: to provide rigorous and objective legal advice to the 
Secretary of State and other officials as they carry out the 
foreign policy of the United States.
    The office also plays a unique role, supporting the 
Department's mission to promote our values, the rule of law, 
and respect for human rights and democracy around the world.
    In the 23 years since I graduated from Yale Law School, I 
have served as a law clerk to two distinguished jurists, Judge 
Laurence Silberman and Justice Steven Breyer, and in senior 
positions at the Department of Justice and in the White House 
Counsel's Office. I also served, as you mentioned, Mr. 
Chairman, as General Counsel of the Office of Management and 
Budget where I worked closely with the general counsels of 
agencies across the government on a range of initiatives 
impacting national security and foreign policy. Through that 
role, I gained insight into the broad scope of the State 
Department's operations and worked on treaty issues and 
humanitarian relief efforts. And in my 20 years of practice at 
a global law firm, I have acted as a counselor, a litigator, 
and a negotiator on a range of international issues. If 
confirmed, those experiences should serve me well in carrying 
out the Legal Adviser's role in the negotiation and 
ratification of treaties and international agreements and in 
representing the United States before international tribunals.
    But most importantly, each of these roles has strengthened 
my conviction that a lawyer advising a critical function of 
government must have an unwavering commitment to integrity and 
independence. The most effective lawyers are pragmatic problem-
solvers who identify the range of lawful options available to 
policymakers. But at the same time, a lawyer must be willing to 
speak hard truths and identify limits where law and 
circumstances require.
    If confirmed, I would seek at all times to act with 
fidelity to the Constitution and the rule of law, and I would 
also be guided by the wisdom, articulated by one of my mentors, 
that the demands of honor have special application to 
government service.
    I thank you for your consideration, and I look forward to 
answering your questions.
    [Ms. Newstead's prepared statement follows:]


            Prepared Statement of Jennifer Gillian Newstead

    Chairman Isakson, Ranking Member Shaheen, and members of the 
committee, it is an honor to appear before you as the President's 
nominee to serve as Legal Adviser to the Department of State. I thank 
President Trump and Secretary Tillerson for their confidence in me. I 
would also like to thank the members of the committee and their staff 
for the courtesies you have shown me since my nomination.
    Several members of my family are here today: my husband, Alexander 
Mishkin; and our children, Henry and Charlotte Mishkin, of whom we are 
both very proud. Also with us are my parents, Dr. Gillian Maclaine 
Newstead and Dr. Graham Newstead, and my sister, Dr. Caroline Maclaine.
    I am privileged to come from a family that instilled in me respect 
for public service. I was born on an Army base at Fort Dix, New Jersey, 
where my father was stationed during the Vietnam War. My mother, a 
naturalized citizen, came to the United States from the United Kingdom 
and has spent her career developing new technologies to diagnose and 
treat cancer in women.
    Though the first lawyer in my family, I am actually the third 
generation of women to have pursued a professional career. My 
grandmother, born in 1914, was also a doctor who treated patients 
injured in bombing raids in World War II. A pioneer for her time, who 
sought no such recognition, she exemplified the values of hard work, 
personal responsibility, and strength in adversity. My family's example 
has inspired me to seek out opportunities for public service throughout 
my career.
    If confirmed, it would be my honor to lead the team of more than 
250 career lawyers and professionals who make up the Office of the 
Legal Adviser--a group that is deservedly recognized as the most 
talented collection of international lawyers in the world. The mission 
of the office is simple, but critical: to provide rigorous and 
objective legal advice to the Secretary of State, other Department 
officials, and policymakers across the Federal government as they 
formulate and implement the foreign policy of the United States.
    The Office of the Legal Adviser provides counsel and represents the 
United States on a broad array of issues affecting our vital national 
interests. These include counterterrorism and nuclear non-
proliferation; economic sanctions and law enforcement efforts; the 
protection of U.S. citizens abroad; expanding U.S. trade and investment 
and promoting U.S. businesses overseas. The office also plays a unique 
role supporting the Department's critical mission to promote our 
values, the rule of law, and respect for human rights and democracy 
around the world.
    On a personal note, the career path that led me here today began 
more than thirty years ago, when I first had the privilege of serving 
in the State Department as an intern. I was assigned to a delegation in 
Vienna negotiating confidence and security-building measures to support 
the reduction of conventional armed forces in Europe. The experience 
left an indelible impression of the dedication and skill of the foreign 
service officers and civil servants who perform critical missions every 
day on behalf of the United States.
    That early experience also shaped my path in the law, and my desire 
to combine an international legal practice with opportunities for 
public service. In the 23 years since I graduated from Yale Law School, 
I have served as a law clerk to two distinguished jurists, Judge 
Laurence Silberman and Justice Stephen Breyer; in senior positions at 
the Department of Justice and the White House Counsel's Office; and as 
General Counsel of the Office of Management and Budget.
    I joined the Justice Department several months before the terrorist 
attacks of September 11, 2001. In the aftermath of those terrible 
events, I worked with a dedicated team of attorneys at the Department, 
and with the bi-partisan staff of the Senate Judiciary Committee, to 
develop legislation to modernize longstanding law enforcement tools to 
better equip our government to fight terrorism.
    In the White House Counsel's Office and as General Counsel of OMB, 
I worked closely with the General Counsels of agencies across the 
government, including the Departments of Defense, State and the 
Treasury, on a range of initiatives impacting our national security and 
international relations. In leading the legal function at OMB, I gained 
insight into the broad scope of the State Department's operations, and 
worked on regulatory issues involving treaty implementation and 
humanitarian efforts such as the President's Emergency Plan for AIDS 
Relief.
    In my twenty years of private practice at a global law firm, I have 
acted as a counselor, litigator and negotiator on a range of 
international issues. I have advised clients on compliance with U.S. 
laws aimed at preventing corruption and money laundering; imposing 
economic sanctions; and protecting the integrity of the financial 
markets. If confirmed, those experiences should serve me well in 
carrying out the Legal Adviser's role in the negotiation and 
ratification of treaties and international agreements, and in 
representing the United States before international tribunals.
    Most importantly, each of these roles has strengthened my 
conviction that a lawyer advising a critical function of government 
must have an unwavering commitment to integrity and independence. The 
lawyer's role is always to provide her client with the highest-quality 
advice. The most effective lawyers are pragmatic problem-solvers, who 
identify the range of lawful options available to policymakers.
    At the same time, a lawyer must be willing to speak hard truths and 
identify limits where law and circumstances require. A lawyer must also 
be prepared to provide her best judgment on the wisdom of proposed 
actions, as well as their legality.
    If confirmed, I would at all times seek to act with integrity, 
independence, and fidelity to the Constitution and the rule of law. I 
would also be guided by the wisdom, articulated by one of my mentors, 
that the demands of honor have special application to government 
service.
    Thank you for your consideration. I look forward to your questions.


    Senator Isakson. Thank you, Ms. Newstead.
    Ms. Singh?

    STATEMENT OF MANISHA SINGH, OF FLORIDA, TO BE ASSISTANT 
       SECRETARY OF STATE, ECONOMIC AND BUSINESS AFFAIRS

    Ms. Singh. Chairman Isakson, Ranking Member Shaheen, and 
members of the committee, thank you for your time today. I am 
humbled and grateful to be considered to serve as the Assistant 
Secretary of State for Economic and Business Affairs.
    I want to express my gratitude to President Trump and 
Secretary Tillerson for the confidence and trust they have 
placed in me.
    I am particularly honored to appear before this committee. 
I had the privilege of being on the staff for several years.
    I want to thank my friends for being here today. My family 
was not able to make it here for the hearing, but they are 
watching from home and I would like to tell you about them. My 
parents both grew up in small rural villages in India. Neither 
set of my grandparents were able to read or write. My mom and 
dad knew that an education was the key to moving forward. We 
moved from India to Florida where my father earned a Ph.D. at 
the University of Florida. I was 2 years old when I came here. 
My parents impressed on me and my sister how lucky we were to 
be immigrants to this great country. Here in America, a young 
girl could grow up to be anything she wanted. Never have I 
believed this more than as I sit before you today.
    If confirmed, I would be the first woman installed to lead 
this bureau. I have experience there, previously managing a 
division as a Deputy Assistant Secretary. It is composed of 
over 200 talented men and women in Washington, as well as 
economic officers posted all over the world.
    In an era of global competition, we have to make sure that 
U.S. companies have every opportunity to succeed. The bureau 
plays a key role in a healthy American economy by ensuring a 
level playing field for our companies. We have to make sure 
that economic resources are fully employed as carrots and 
sticks in the interest of American stability and prosperity.
    I would utilize both my government and private sector 
experience to successfully lead this bureau. My legislative 
service has afforded me the privilege of hearing the concerns 
of everyday Americans. If confirmed, I will work to make sure 
that everyone in the bureau is proud to be a member of my team 
and to make sure that we put the interests of the American 
people first.
    I thank you again, and I am happy to answer any questions 
you may have.
    [Ms. Singh's prepared statement follows:]


                  Prepared Statement of Manisha Singh

    Chairman Isakson, Ranking Member Shaheen and members of the 
committee, thank you for your time today. I am humbled and grateful to 
be considered to serve as the next Assistant Secretary of State for 
Economic and Business Affairs.
    I want to express my gratitude to President Trump and Secretary 
Tillerson for the confidence and trust they have placed in me to take 
on this important role.
    I am particularly honored to appear before this committee--I had 
the privilege of being on the staff for several years.
    I want to thank my friends for being here today. My family was not 
able to make it to the hearing, but they are watching from home, and 
I'd like to tell you about them. My parents both grew up in small rural 
villages in India. Neither set of my grandparents were able to read or 
write. My mom and dad knew that an education was the key to moving 
forward. We moved from India to Florida where my father completed a PhD 
at the University of Florida. I was two years old when I came here. My 
parents impressed on me and my sister how lucky we were to be 
immigrants to this great country. Here in America, a young girl could 
grow up to be anything she wanted.
    My parents still live in Florida and my sister lives with her 
husband and their daughters in northern Georgia. I'd like to say the 
same thing to my nieces as my parents always said to me. Here in 
America, a young girl can grow up to be anything she wants. Never have 
I believed this more than as I sit before you today.
    If confirmed, I would be the first woman installed to lead the 
Bureau of Economic and Business Affairs. I have experience in the 
bureau, previously managing a division as a Deputy Assistant Secretary. 
It's composed of over 200 talented men and women in Washington as well 
as economic officers posted in every U.S. mission around the world.
    In an era of global competition, we have to fight unfair practices 
and make sure that U.S. businesses have every opportunity to succeed. 
If confirmed, I would ensure that small and medium size enterprises, 
women and minority-owned businesses are a particular focus of our work. 
The bureau plays a key role in a healthy American economy by ensuring a 
level-playing field for our companies and by encouraging foreign 
investors to create good jobs here in America.
    If confirmed, I would work closely with my counterparts to use our 
full range of instruments to partner with those who work with us and to 
enact serious consequences against global bad actors. We must make sure 
that economic resources are fully employed as carrots and sticks in the 
interest of American prosperity and stability.
    I would utilize both my government and private sector experience to 
lead successfully. In the private sector, it was my job to understand 
the real life consequences of government decisions.
    My legislative service has afforded me the privilege of hearing the 
concerns of every day Americans. If confirmed, I will work to make sure 
that everyone in the bureau is proud to be a member of my team and to 
make sure that we put the interests of the American people first.
    I thank you again, and I would be happy to answer any questions you 
may have.


    Senator Isakson. Thank you very much.
    Mr. Evanoff.

 STATEMENT OF MICHAEL T. EVANOFF, OF ARKANSAS, TO BE ASSISTANT 
            SECRETARY OF STATE, DIPLOMATIC SECURITY

    Mr. Evanoff. Chairman Isakson, Ranking Member Shaheen, and 
members of the committee, I am honored to appear before you 
today as President Trump's nominee to the Department of State's 
Assistant Secretary for the Bureau of Diplomatic Security. I am 
grateful for the confidence that the President and Secretary 
Tillerson have placed in me, and I am humbled by the 
designation of becoming the only second DS special agent in the 
bureau's 101-year history to come through the ranks and to be 
nominated to serve as Assistant Secretary.
    As a former senior DS Agent for 26 years, I want to thank 
you for your continuing unwavering support for both the 
Department and the Diplomatic Security. I am very proud to be 
associated with the outstanding men and women who labor 
tirelessly to protect America's diplomatic facilities, critical 
information, and most importantly, American lives. They also 
conduct extensive, important investigations necessary to keep 
our country safe.
    I first want to thank my wife Kate, my soul mate Kate, my 
son Luke, who could not be with us today because he would tear 
the place apart if he was here. He is 2 and a half. I would 
also like to introduce to you my sister-in-law Karen Evanoff; 
and my niece, Olivia Evanoff; and my nephew, Tommy Evanoff. I 
would also like to introduce my brother-in-law, Raunt DeWinter; 
and his son Mack DeWinter; and my great mother-in-law, Eleanor 
Milner; and her friend and partner, John Casey. They all came 
down from North Carolina and Groton, Connecticut.
    My thoughts today, though, are also with my parents, Walter 
and Lyle Evanoff, who first showed me the value of law 
enforcement service through their distinguished careers as 
police officers right here in the District of Columbia. So I 
want to thank them and know that I am with them on this special 
day.
    I first joined Diplomatic Security 32 years ago in 1985 in 
the wake of the Beirut bombings and the subsequent approval of 
Admiral Bobby Inman's recommendations calling for the creation 
of a more robust and professional Diplomatic Security Service 
for the Department of State. The Inman report identified the 
need for increased funding for stronger overseas embassies and 
consulates and led to additional hiring of special agents, 
security engineers, couriers, and other key positions. Thanks 
in large part, Chairman, to the work of this Senate committee 
right here, the recommendations were formally authorized by 
Congress 1 year later to form the Omnibus Diplomatic Security 
and Antiterrorism Act of 1986.
    In the 3 decades since my hiring as part of the Inman 
tranche of DS special agents, I have served in eight overseas 
postings, four of which were designated as high threat. Among 
other things, I established the first DS liaison position for a 
U.S. military regional command and managed the largest spy case 
and damage assessment in NATO history. I also helped designing 
the post-9/11 informant walk-in program at our embassy in 
Islamabad that contributed to the capture of Khalid Sheik 
Muhammad.
    My work with the Department, combined with my private 
sector experience leading international security programs for 
two Fortune 100 companies, has given me a unique perspective on 
DS's inherent strengths and challenges, as well as future 
security changes that may be necessary to ensure the continued 
conduct of American diplomacy in a safe and effective manner.
    With support and continued guidance from members of this 
committee and Congress as a whole, one of my goals will be to 
enable stronger and more effective collaboration with our 
colleagues throughout the Department, the military, the IC 
community, and this body here. This enhanced collaboration 
needs to be both strategic and operational, and we need to 
establish key performance indicators to measure the value of 
the work with our partners in protecting our people and 
facilities worldwide.
    In a world of rapid technological innovation and constantly 
evolving cyber and terrorism threats, the appropriate sharing 
of actionable security information also needs to remain a top 
priority for DS. If confirmed, I intend to closely monitor our 
operational and strategic planning objectives with the 
Department and with the intelligence community when it comes to 
opening and maintaining posts in high threat and potentially 
hostile environments. There need to be clear goals and 
objectives if we are to consistently and successfully operate 
in hostile environments with little or ineffective host 
government support.
    I will also put special focus on continued overhaul and 
refinement of security training for the Department of State 
employees. This includes intensified specialized training for 
all DS agents and the ongoing expansion of the Foreign Affairs 
Counter Threat, FACT, course for all government employees 
working overseas under the Chief of Mission authority. It also 
includes the completion of the Department's Foreign Affairs 
Security Training Center, FASTC, at Fort Pickett, Virginia.
    Finally, if confirmed, I also hope to strengthen the 
organization's morale. Everyone in DS, whether part of the 
Foreign Service, the Civil Service, or a contractor, deserves 
to be recognized for the vital role they play on a daily basis. 
There needs to be a broader recognition and appreciation for 
the fact that we are one team with one mission.
    Thank you for your time and consideration, and I am happy 
to answer any questions that you might have.
    [Mr. Evanoff's prepared statement follows:]


                Prepared Statement of Michael T. Evanoff

    Senator Isakson, Senator Shaheen, and members of the committee. I 
am honored to appear before you today as President Trump's nominee to 
be the Department of State's Assistant Secretary for the Bureau of 
Diplomatic Security and am very grateful for the confidence that the 
President and Secretary Tillerson have placed in me.
    First, as a former senior DS Agent for 26 years, I want to thank 
you for your continued unwavering support for both the Department and 
Diplomatic Security. I am very proud to be associated with the 
outstanding men and women who labor tirelessly to protect America's 
diplomatic facilities, critical information, and, most importantly, 
American lives. They also conduct extensive, important investigations 
necessary to keep our country safe.
    At any given time, there are thousands of Americans living overseas 
under the authority of the Chief of Mission or otherwise representing 
American interests. Those men, women and children deserve no less than 
the full commitment of the U.S. Government to do everything in our 
power to ensure they can live and operate safely. If I am fortunate 
enough to be confirmed, it will be my mission to honor that commitment 
every day.
    I want to thank my wife Kate, my son Luke, and my extended family 
for their love and support, and for allowing me to rejoin an 
institution that I love. My thoughts today are also with the memory of 
my parents, Walter and Lyle, who first showed me the value of law 
enforcement service through their distinguished careers as police 
officers right here in the District of Columbia.
    Finally, I want to thank the President and Secretary Tillerson for 
the confidence they have placed in me to lead DS in an increasingly 
complex and dangerous world. I am humbled and proud by the designation 
of becoming only the second DS Special Agent in the Bureau's 101-year 
history to come up through the ranks and be nominated to serve as 
Assistant Secretary.
    I first joined Diplomatic Security 32 years ago, in 1985, in the 
wake of the Beirut bombings and the subsequent approval of Admiral 
Bobby Inman's recommendations calling for the creation of a more robust 
and professional Diplomatic Security Service for the Department of 
State. The Inman report identified the need for increased funding for 
stronger overseas embassies and consulates, and led to additional 
hiring for more Special Agents, Security Engineers, Couriers and other 
key positions. Thanks in large part to the work of this Senate 
committee, the report's recommendations were formally authorized by 
Congress one year later in the form of the Omnibus Diplomatic Security 
and Antiterrorism Act of 1986.
    In the three decades since my hiring as part of the first ``Inman'' 
tranche of DS Special Agents, I have served in eight overseas postings, 
four of which were designated as High Threat at the time. Among other 
things, I established the first DS liaison position with a U.S. 
military regional command, managed the largest Russian spy case and 
damage assessment in NATO history, and designed a post-9/11 informant 
``walk-in'' program at our Islamabad embassy that contributed to the 
capture of Khalid Sheik Muhammad.
    My work with the Department combined with my private sector 
experience leading international security programs for two Fortune 100 
companies has given me a unique perspective on DS's inherent strengths 
and challenges, as well as future security changes that may be 
necessary to ensure the continued conduct of American diplomacy in a 
safe and effective manner.
    If confirmed, I will ensure DS does its part to support the 
implementation of the Department's policy priorities while always 
remaining cognizant of our obligations to the American taxpayer. With 
support and continued guidance from members of this committee and 
Congress as a whole, one of my top goals will be to enable stronger and 
more effective collaboration with our colleagues throughout the 
Department, the military, and the intelligence community. This enhanced 
collaboration needs to be both strategic and operational, and we need 
establish key performance indicators to measure the value of our work 
with our partners in protecting our people and facilities worldwide.
    In a world of rapid technological innovation and constantly 
evolving threats, the appropriate sharing of actionable security 
information also needs to remain a top priority for DS. If confirmed, I 
intend to closely monitor our operational and strategic planning 
objectives with the Department and the intelligence community when it 
comes to opening and maintaining posts in high threat and potentially 
hostile environments. There need to be clear goals and objectives if we 
are to consistently and successfully operate in hostile environments 
with little or ineffective host-government support.
    I will also put special focus on the continued overhaul and 
refinement of security training for Department of State employees. This 
includes intensive specialized training for all DS agents and the on-
going expansion of the Foreign Affairs Counter Threat (FACT) course for 
all employees working overseas under the authority of the Chief of 
Mission. It also includes the completion of the Department's Foreign 
Affairs Security Training Center (FASTC) at Fort Pickett, Virginia. 
Once fully up and running, this state-of-the-art facility will allow DS 
to provide more efficient and effective hard skills training--such 
firearms, explosives, antiterrorism driving techniques, and defensive 
tactics--for roughly 10,000 students annually.
    Finally, if confirmed, I also hope to strengthen our organization's 
morale. Everyone in DS--whether part of the Foreign Service, the Civil 
Service, or a contractor--deserves to be recognized for the vital role 
they play on a daily basis. There needs to be a broader recognition and 
appreciation of the fact that we are one team with one mission.
    To be considered to lead DS at this moment is the most rewarding 
professional opportunity of my career. If confirmed, I look forward to 
undertaking this responsibility and collaborating closely with the 
members of this committee in the months and years ahead.
    Thank you for your time and consideration. I am happy to answer any 
questions you may have.


    Senator Isakson. Thank you, Mr. Evanoff.
    We will open the floor for 5-minute questions, and I am 
going to open real quickly.
    Mr. Evanoff, you mentioned Fort Pickett.
    Mr. Evanoff. Yes, sir.
    Senator Isakson. As a good Senator and a good politician, I 
cannot help but tell you there are two great facilities in 
Georgia called FLETC, the Federal Law Enforcement Training 
Center, and the Guardian Center outside of Perry, Georgia, 
which are two outstanding situational training areas for law 
enforcement antiterrorism activities, military activities, and 
the like. So when you are looking at Fort Pickett and all the 
others, also do not forget those two. They are great 
facilities.
    Mr. Evanoff. Absolutely, sir. I was trained at FLETC in 
Georgia. So I know exactly what they provide.
    Senator Isakson. Thank you very much.
    Mr. Evanoff. Thank you, sir.
    Senator Isakson. Mr. Carter, I am scared to death with what 
North Korea is doing. You and I had a conversation yesterday 
that scared me worse last night when I started thinking about 
our conversation. I had not thought about where those missiles 
are going between the time Kim Jong-un launches them and they 
fall in the South China Sea or wherever.
    Will your representation on this organization of civil 
aviation have some voice in bringing about requirements on 
countries to notify civil aviation on any use of 
intercontinental ballistic missiles or other missiles that 
might be done on a testing basis?
    Mr. Carter. Mr. Chairman, this is probably one of the most 
sensitive top issues that is going to be handled at the council 
starting on the 30th of October, this month. Launching 
ballistic missiles into international airspace is absolutely 
unacceptable. It is an enormous risk to civil aviation. As a 
person who commanded multi-engine jets, the worst thing I can 
think of is to be sitting at altitude and see a ballistic 
missile come through your airspace. And through my research in 
preparation for this, it is clear that one of these ballistic 
missile launches did, indeed, go through the flight path of an 
international flight. You are supposed to issue notices to 
airmen anytime you are doing any type of missile testing like 
that in international airspace.
    So I know that the mission at ICAO is working closely with 
the council members to deal with this issue, and they have made 
it a priority for the 30 October meeting. And if confirmed, I 
guarantee you this will be one of my top priorities and I will 
certainly work with you and this committee to make sure that 
this is being dealt with.
    Senator Isakson. Well, thank you. That is of the utmost 
importance. I had not thought about that risk until we talked 
yesterday, but it is obviously huge and a big one.
    Mr. Carter. Yes, sir.
    Senator Isakson. Ms. Singh, you are going to be an advisor 
on economic affairs. Is that not correct?
    Ms. Singh. Yes, Senator.
    Senator Isakson. I think soft power is the most powerful 
tool the United States has to win friends and influence enemies 
around the world and certainly far better than fighting wars 
all the time, if you can help it.
    The Millennium Challenge Corporation and other things like 
that have proven that good investment in foreign countries to 
be our friends and helping them to develop and subscribe 
themselves to a better way they treat their workers and better 
ways for them to interact with people. Are you going to promote 
the Millennium Challenge Corporation in your work, or will it 
be a part of your work at the State Department?
    Ms. Singh. Yes, absolutely, sir. The Millennium Challenge 
Corporation--the Economic Bureau is the link at the State 
Department for the MCC. And I very much believe, as you have 
said, that good governance, transparency in governments all 
around the world is of great benefit to us. I think we cannot 
underemphasize at all the emphasis of soft power and diplomacy 
to prevent conflicts. It is very much in the American interest 
to build up institutions such as the MCC. And I commit to you 
that it will be a priority of mine, if confirmed for this 
position, Senator.
    Senator Isakson. Well, I think it is critically important, 
and I think your experience and the conversation we had 
yesterday encourages me of the high priority you have given to 
that.
    The gentleman I talked about in your introduction is here 
now, Dan Sullivan. Senator Sullivan came and wanted to be a 
part of this hearing because you work with him now. He is a big 
fan of yours, and I am going to let him say anything he wants 
to say, as long as it does not take longer than a minute and 26 
seconds. [Laughter.]

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and I just want 
to thank the committee for an opportunity to say a few words 
about Manisha Singh. I think she is extremely well qualified 
for this position, given her vast amounts of experience.
    I will just tell you a little story, Mr. Chairman. I was a 
marine who was coming off active duty 11 years ago. I spent a 
year and a half in the Middle East, and I came back and was 
nominated for the Assistant Secretary position that Manisha 
Singh is getting ready to take, if confirmed, which I am 
confident she will be. And when I got back, there was a Foreign 
Relations Committee staffer who was actually helping me prepare 
for my hearing, just like this hearing, 11 years ago, and it 
was Manisha Singh. So this is kind of karma, good karma, I 
would say. And then she later became my Deputy Assistant 
Secretary of State in charge of all trade and economic issues. 
So enormously important back then, maybe even more important 
now. So she is an expert in that area. I am sure you will get 
good answers from your questions about that.
    And then later I had the honor of having Manisha work for 
me in the Senate. Right now she does as a counselor and top 
foreign policy official. So I think she is very well qualified.
    I want to thank the President and Secretary Tillerson for 
the great nomination, and she will do a great job for the 
country. And I just wanted to thank you for the opportunity to 
say a few words on this committee.
    Senator Isakson. I would never turn Ms. Singh down for any 
request that she makes to talk about you. [Laughter.]
    Senator Isakson. My ranking member, Ms. Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Carter, again congratulations on your nomination, and I 
am delighted to know that you have agreed to be considered for 
this post.
    In October of 2016, the International Civil Aviation 
Organization agreed on international carbon dioxide emission 
standards for aircraft beginning in 2020 and also on a system 
for offsetting future carbon dioxide emissions from aviation. 
Both U.S. airlines and the aircraft manufacturers were part of 
and agreed to those negotiations' resulting agreements, and the 
emission standards would be implemented by the U.S. 
Environmental Protection Agency regulations issued under the 
Clean Air Act.
    So if confirmed, will the United States continue to proceed 
with actions to implement these standards?
    Mr. Carter. Well, Senator, it is always great to see you 
again. And I think this is a terribly important issue that you 
brought up because as you well know, there some EU legislation 
in 2012. The 2013 assembly basically outlined all of these 
market-based measure requirements.
    So in 2016, as you stated, CORSIA, was supported. The 
Carbon Offsetting Reduction Scheme, was supported by the United 
States and all the other nations. Once again, as I just said 
earlier about North Korea, the standards and recommended 
procedures for implementing CORSIA are going to be considered 
by the council that is meeting on the 30th of October, this 
month. So basically all the nations on the council, including 
the United States, in 2016 approved CORSIA. Now they will be 
approving the actual standards and the procedures. And 
certainly, if confirmed, I will keep your committee and the 
staff that I discussed this with, Josh and those guys, 
completely up to speed on this because it is very, very 
important. And of course, as you know, Airlines for America, 
IATA, everyone is supporting this right now. So, yes, ma'am.
    Senator Shaheen. It is still not clear to me. Are you 
saying that you will continue to take the position on the part 
of the United States to support these standards?
    Mr. Carter. Well, the administration itself, as I 
understand it--obviously, I have not been able to talk to 
people, but the administration has not taken a formal position 
yet. But as soon as I do hear about that, I will get back to 
you. But as of right now, I do not see why we will not be 
taking the standards and recommended procedures seriously.
    Senator Shaheen. Thank you.
    Mr. Carter. Yes, ma'am.
    Senator Shaheen. Ms. Newstead, first of all, again thank 
you for agreeing to be considered for this nomination. You 
clearly have the experience and credentials to do an excellent 
job.
    As you know, the position of Legal Counsel in the State 
Department carries a very heavy burden in terms of the issues 
which confront you. And I want to begin with asking you about a 
question that I asked another nominee for a high State 
Department post about, and I was not adequately satisfied with 
the answer that I heard and that has to do with impoundment.
    As I am sure you are aware, the Senate appropriations 
committee that deals with the State Department's budget 
recently passed out a budget that was much more generous than 
that recommended by the administration. And there has been some 
speculation as to whether the administration would try to just 
not spend that money if it came to the Department.
    So can you tell me whether you think the Department could 
legally do that, or are you under obligation, if the Congress 
has passed a budget, to spend the money as directed by 
Congress?
    Ms. Newstead. Well, Senator, thank you for that question. I 
would be happy to address it.
    In general, Senator, of course, when Congress passes 
legislation that is enacted through the President's signature, 
there is a duty to spend those funds in accordance with the 
terms that Congress has specified.
    I am, of course, aware, Senator, as you know, about the 
federal statute that provides specific situations in which the 
administration can notify Congress either of a need to delay or 
possibly a proposal to not spend funds as appropriated. And 
there are specific situations and standards that the statute 
lays out and notification procedures to the Congress. So if I 
am confirmed, it will be my intention, Senator, to apply the 
law as written by the Congress, including with respect to that 
statute.
    Senator Shaheen. And I am sure you are aware of the court 
that determined that Congress does have the responsibility to 
pass the budget and that agencies have a requirement to spend 
those dollars.
    Ms. Newstead. Yes, I am. Thank you, Senator.
    Senator Shaheen. I am out of time, Mr. Chairman.
    Senator Isakson. Senator Young?
    Senator Young. Thank you, Chairman.
    I want to congratulate all of our nominees.
    Ms. Newstead, thanks so much for the meeting yesterday. You 
will not be surprised, based on our meeting, that I have a 
number of follow-up questions pertaining to the situation in 
Yemen. I explained to you my interest in the situation 
surrounds the largest humanitarian crisis in the world. Our 
relationship with Saudi Arabia, I believe, creates a real 
opportunity for the United States to alleviate suffering in 
Yemen and also stabilize the region.
    I want to get some moral and legal clarity about a number 
of different matters. So I am going to go very quickly here. I 
ask that you provide clear and concise--concise--responses to 
my questions, please.
    On July 18, I convened a subcommittee hearing on the four 
famines. I gave you a transcript of that hearing. Have you had 
an opportunity to review that?
    Ms. Newstead. I have. Thank you, Senator.
    Senator Young. So you are familiar with many of the facts 
associated with this horrific situation.
    I asked about the Saudi-led coalition's pattern of impeding 
humanitarian assistance. I asked this question of Executive 
Director of the World Food Programme, David Beasley. He said 
the United Nations--he indicated, quote, I think it is an 
abhorrent activity and a violation of not just humanitarian 
international laws. Morally it is just a terrible thing.
    Now, section 620(i) of the Foreign Assistance Act prohibits 
the provision of security assistance or assistance under the 
Arms Export Control Act, quote, to any country when it is made 
known to the President that the government of such country 
prohibits or otherwise restricts, directly or indirectly, the 
transport or delivery of U.S. humanitarian assistance. Do you 
agree that is what the statute plainly states?
    Ms. Newstead. It sounds like a correct summary to me. Yes, 
sir.
    Senator Young. Thank you.
    Based on your preparation for this position and for this 
hearing and based on the facts you have reviewed, is it your 
professional, your personal, your legal judgment that Saudi 
Arabia has prohibited or otherwise restricted, directly or 
indirectly, the transport or delivery of U.S. humanitarian 
assistance? Yes or no, please.
    Ms. Newstead. Well, Senator, if I may, just before I answer 
that question directly, I did appreciate our conversation 
yesterday, and I have had an opportunity to look initially at 
the materials you----
    Senator Young. I am going to give you 10 seconds, please. 
Yes or no.
    Ms. Newstead [continuing]. Well, Senator, in order to be 
able to give you a legal judgment on that, I would need to 
spend time consulting with the Department's experts on both the 
facts and legal----
    Senator Young. You will not be providing a personal 
opinion. We will pivot to the Department of State, please. You 
are nominated to serve as the principal Legal Adviser to the 
Department of State on all legal matters, domestic and 
international. Based on your work with the Department to 
prepare for this position and this hearing, what is the 
Department of State's current view on this question?
    Ms. Newstead [continuing]. Well, Senator, I am aware that 
the Department has responded to some inquiries that you made 
before, but I believe there is more information that should be 
provided. And I can tell you, Senator, that if I am confirmed, 
I would make it a priority to study the issue and consult with 
the Department in order to provide additional information to 
you.
    Senator Young. So it is well known and broadly understood 
by those who immerse themselves in the facts that the Saudi-led 
coalition has deliberately and precisely bombed U.S.-funded 
cranes that were supposed to be delivered to the major port of 
Hodeidah. That port was to receive humanitarian supplies, 
again, in part funded by U.S. taxpayers. The Saudi-led 
coalition also bombed a World Food Programme warehouse I 
mentioned to you yesterday in Hodeidah. The Saudi-led coalition 
continues to delay shipments going into Hodeidah for days that 
would end up going to vulnerable Yemenis, which has created the 
largest humanitarian crisis in the world or certainly 
exacerbated it. And according to the UN, the Saudi-led 
coalition continues to delay commercial vessels going into 
Yemen's Red Sea port.
    So in light of these facts, assuming they are correct, how 
can you or the Department--would you defend a judgment that 
there would be no violation of the Foreign Assistance Act?
    Ms. Newstead. Well, Senator, I think with the facts that 
you have identified and the facts that we discussed yesterday, 
they certainly raise a very meaningful question in my mind 
whether the responsibilities under that provision have been 
triggered. And let me explain, if I could, Senator, because I 
believe as we discussed, what that statute provides is that if 
the President or the Secretary become aware or it is made known 
to them that a recipient of federal foreign assistance is 
essentially delaying or obstructing the delivery of assistance, 
then there is an obligation to prohibit providing further 
assistance to that government. And as we discussed, an 
exception that the President can find it in the national 
interest to waive that, in which case notification to the 
committee is required. And, Senator, in our discussion, we 
discussed many factors which would suggest----
    Senator Young. Let me interject respectfully because my 
time is running out. I commend you. You do seem to have a 
command of other provisions of the law, indicating that the 
President can, under certain circumstances, waive. They would 
have to notify Congress. Is there any evidence the President 
has notified Congress?
    Ms. Newstead [continuing]. Well, Senator, that is one of 
the questions I have been trying to look into since we 
discussed this yesterday. I am not aware that a notification 
has been made. And I agree with you from our discussion 
yesterday that that raises an implication as to what 
determination has the Department made. So I certainly, Senator, 
can commit to follow up on this question and try to get back to 
you with more information.
    Senator Young. Okay.
    Well, I am a little over my time. I thank the chairman for 
his indulgence.
    I will be submitting some more fulsome questions for you to 
answer on the record, also one pertaining to violation of 
Customary International Humanitarian Law rule 55. I for one am 
going to need clear and unambiguous responses to these 
questions from you and the Department before we vote on your 
confirmation on the floor. Thank you so much, and I am sorry 
for the rush.
    Thank you, Mr. Chairman.
    Senator Isakson. Thank you, Senator.
    I want to keep the committee open for a few more minutes 
for a couple of follow-up questions. I have one. I think there 
may be another one or two. So if it is okay with you all. We 
have six votes coming up beginning at 3 o'clock. So we will 
have to adjourn by then. I know you all want to get to your 
markup as soon as we can in the next week or so. So we will 
make sure we get this finished today.
    But I have a question. Mr. Evanoff, back when the Benghazi 
attack took place and we had the tragic loss of the U.S. 
Ambassador and two CIA personnel and other personnel 
representing the United States of America, Secretary Clinton, 
then Secretary of State, and President Obama had an 
accountability review board that reviewed everything that was 
done in Benghazi for security and protection and backup, et 
cetera and ended up making recommendations that we were $2.2 
billion short having enough security improvements in our 
embassies around the world to truly protect our individuals on 
duty.
    Have you seen that report?
    Mr. Evanoff. I have.
    Senator Isakson. Do you know if anything is being done 
post-Benghazi in the Department to build up and beef up the 
security diplomatically and ambassador-wise around the world?
    Mr. Evanoff. Sir, it is an excellent question. I thank you 
for the question.
    Yes, having been in the private sector at that time, I too 
was a little concerned about what was happening to the 
Department security-wise. So when I was given this opportunity, 
the first thing I read was the unclassified ARB report, but 
also I read the best practices report that came out of it and 
also what DS has done. And two major things have really struck 
me and something I wish I had when I was in Pakistan in 9/11, 
during that time.
    One is that we have a high threat post division now that 
focuses on the 32 posts that need assistance at any given time. 
We did not have that back in 2001. That gives us a 911 call to 
allow the division to answer anything that the RSO would want 
or need for that high threat posting. So there is dedicated 
people that would go and help them for that.
    The second thing is that we put together an operations 
planning group where we look at why we are going into a country 
that has hostile intention before we even get there. Why do we 
even need to be there at that point? Can we build the security 
around it? So we made it transparent, and we allowed all 
stakeholders to come around the table and give their thoughts 
and views on why we should go to country X and why we need the 
national security agenda to make that. If there is a risk, 
there should be a reward. If there is no reward and you have a 
high risk, then that venue will capture it.
    So those two things are the most important ones I have 
seen, to include also the training centers that will open up in 
Virginia. So I believe those three things is what we did not 
have when I was there.
    Senator Isakson. We always want to have our country in a 
position to protect those who represent us diplomatically 
around the world. And what happened in Benghazi was something 
we should react to and make sure it does not happen again to 
the maximum extent possible.
    Ms. Shaheen, do you have a question?
    Senator Shaheen. I do. Thank you, Mr. Chairman.
    I want to follow up, Mr. Evanoff, because one of the things 
that we have seen recently is the Russians have harassed our 
embassy officials who are stationed in Russia. Do you have 
strategies for how you think we could respond to those kinds of 
activities on the part of a host country?
    Mr. Evanoff. Senator, it is a good question, and I thank 
you for it.
    We have seen this to the point where Russian intelligence 
services have broken into our residences in Moscow. They have 
actually poisoned our pets. They have harassed, left nasty 
notes.
    I look at it this way not to lower ourselves to that. But I 
know that the FBI monitors this here domestically, and we do 
not do anything at all to them like that. That is not who we 
are. But at that point, I think it should be known more 
publicly that this is happening. Before it used to be a closed 
secret that our diplomats get harassed in Moscow and St. Pete 
and nobody really knew about that except the Foreign Service 
families themselves. If this became transparent and the general 
public knew that there are hostile intelligence services going 
into our residences on diplomatic grounds, then I believe we 
would get more pressure from Russia to back off. I think we 
have got to shine the light on this situation more.
    Senator Shaheen. And so is that something that you would 
expect the Secretary of State to do, or who would do that, 
shining the light?
    Mr. Evanoff. Sure. I think the Secretary has already 
demonstrated that with Cuba, the fact that we identified 15 
people to leave, what they have done to us in Havana, then we 
will then push them out of Washington, D.C. I think this 
Secretary has an appetite to bring it to Secretary Lavrov and 
tell him to cut that out, that this is something that is not 
something that a first-rate country should do to another 
country like that. I do believe the Secretary has the ability 
and would want to do that.
    Senator Shaheen. Thank you.
    Ms. Newstead, President Trump has used language on multiple 
occasions that threaten North Korea with the use of military 
force. Specific legislative authority to use military force 
against North Korea has not been enacted. In your opinion, does 
the President have the authority to use military force to 
prevent North Korea from advancing its nuclear weapons program 
without a North Korean attack?
    Ms. Newstead. Well, Senator, thank you for that important 
question.
    It is my view the law generally provides the President may 
act to defend the United States, and that includes in some 
circumstances acting preemptively when there is an imminent 
threat, military threat for example. That is certainly one 
scenario that could arise in the case of North Korea.
    So in answer to your question, I would say my starting 
point would be to consider those authorities, those 
constitutional authorities, and as a matter of international 
law.
    Senator Shaheen. Ms. Singh, finally, I had the opportunity, 
when I was Governor, to take several trade missions overseas, 
and one of the biggest helps to us was the commercial service 
within the Department of State in terms of identifying partners 
to do business with and helping us. So can you talk about how 
you would approach that role of economic statecraft and how you 
would coordinate with the Department of Commerce in working 
with businesses abroad who want to improve their bottom line?
    Ms. Singh. Thank you, Senator. That is such an important 
issue right now because, as you know, we need to provide 
American companies with every opportunity to succeed and 
prosper globally. And I have been lucky to be able to take part 
in the trade missions such as the one you are mentioning when 
you were Governor. I think it is critically important that we 
continue these.
    I would closely with my counterparts at the Department of 
Commerce to identify markets not only in which our companies 
are doing well, but in which our companies are having problems. 
If there is a particular country where their companies are able 
to come into the United States and invest freely and our 
companies are suffering from regulatory barriers or restrictive 
approval processes that are prohibiting them from prospering in 
those markets, I would work with my counterparts at the 
Department of Commerce to take trade missions which would 
involve speaking to commercial officials in these governments 
at the highest levels, introducing them to our companies, and 
saying our companies are having difficulty getting through your 
approval process, what can we do to help them.
    And then I would also find partners that might be 
interested in partnering with our companies over there. In the 
cases of joint ventures, sometimes it is easiest to navigate 
commercial markets when you are doing so with a company who 
knows the landscape there.
    I thank you for that question. I think it is critically 
important.
    Senator Shaheen. Me too. Thank you.
    Thank you, Mr. Chair.
    Senator Isakson. It is a good thing we are dealing with 
diplomacy because I have a diplomatic challenge. Mr. Young 
would be next to be called on in a second round, but Mr. Kaine 
has arrived and he has not asked any questions yet. So I tell 
you what I am going to do, with the concurrence of everybody in 
the room up here--and if any of you all have an opinion, you 
can let me know--I am going to recognize Senator Kaine for 5 
minutes and then go to Senator Young for another 5 minutes. And 
if my timing is right, that will put us right at the time we 
got to get out of here to go vote anyway. Does that sound all 
right with you?
    Senator Isakson. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. Very diplomatic.
    So I appreciate you all and thank you for your service and 
congratulations on your nominations by the President.
    If I can start with Mr. Evanoff, I understand, before I 
came in, you talked a little bit about the FASTC facility under 
construction. I look forward to working with you on that.
    I wanted to talk to you about the FASTC. It was responsive 
to one of the ARB, accountability review board, recommendations 
following Benghazi. There were 29 recommendations. 26 have been 
closed out. And the outstanding recommendations are ongoing 
upgrades in construction to embassy facilities. Talk a little 
bit about, to the extent you understand it, the Department's 
timeline for completing these last three ARB recommendations so 
that they can be closed out as well.
    Mr. Evanoff. Thank you, Senator, for that question.
    I am told that basically out of the three, both of them 
have been--two of them have been closed. One is still hanging 
because it belongs into the classified realm. And of course, I 
have not had access to that. But I am pretty much sure we are 
going to be closing that out very soon.
    Senator Kaine. Well, that is something, should you be 
confirmed, that I would want to come back to you on. I have 
been worried about the overall budget cuts to the State 
Department as they might impact this most important function. I 
mean, of all the folks at the State Department, you are the one 
they should get a life insurance policy on because I think it 
is really, really critical that folks be protected, especially 
given the increases, as you are describing, whether it is Cuba 
or Russia--the increases in some of the security challenges our 
folks face. So I want to reach back out to you about the last 
three.
    Mr. Evanoff. I would welcome that, Senator. Thank you.
    Senator Kaine. Thank you for that.
    To Ms. Singh, congratulations to you. And I wanted to ask 
you a question about cyber. Is the Bureau of Economic and 
Business Affairs in an appropriate position right now, do you 
think, to advance State Department equities around cyber 
threats in consultation with other departments in the 
interagency process? Is this where some of sort of the 
interagency work--is your department where this would take 
place?
    Ms. Singh. Well, thank you, Senator.
    I think you might be referring to the Secretary's plans for 
reorganization----
    Senator Kaine. Yes.
    Ms. Singh [continuing]. In which it has been indicated that 
the cyber function will be moved to the Economic and Business 
Affairs Bureau.
    And I would answer your question to say I think that it is. 
There are complementary capabilities within the bureau 
currently. For instance, as you may know, the International 
Telecommunications Office is managed by the Bureau of Economic 
and Business Affairs. We have a very strong component that 
deals with international telecommunications issues. Cyber fits 
hand in hand with that. We deal with Internet issues, 
commercial issues. Many of those functions already exist within 
the bureau. I think adding cyber would be very complementary, 
and we would make sure to keep cybersecurity at the highest 
level of the utmost importance.
    Senator Kaine. Can you see organizationally--if that is 
added within your section, are there additional resources or 
kinds of personnel that you would need that you do not 
currently have?
    Ms. Singh. Well, Senator, speaking from outside the 
department, I think I would have to reevaluate that if I was 
confirmed for the position. But at this time, it is my 
understanding that positions are being reallocated from the 
Cybersecurity Office to combine in the Bureau of Economic 
Affairs. And we might have to create a separate section to look 
at where those capabilities would best fit. And I would review 
the existing resources, what could be reallocated and 
reprogrammed specifically devoted to a new cyber office. If I 
felt that the resources were insufficient, I would certainly 
consult with the bureau staff to figure out what we needed, 
whether it is personnel, monetary resources, or other sorts of 
things. And I would certainly request that from the Secretary.
    Senator Kaine. Thank you for that.
    Ms. Newstead, one of my passions on this committee is the 
question of authorized use of military force, to sort of follow 
up a little bit on Senator Shaheen. I am on the Armed Services 
Committee too. And it is interesting that the authority over 
AUMF questions is in this committee, and often we are talking 
about sort of the issues that pertain to it more in the Armed 
Services Committee. Senator Shaheen and I serve on both.
    One of the things that has been frustrating--and I just 
really want your commitment to cooperation--is in this 
administration, we have heard over and over again from key 
officials, Secretary Mattis, General Dunford, we would really 
like to work with Congress on a new authorization. But anytime 
there is any draft of anything put on the table, no, we like 
what we have just fine. So there is sort of lip service paid to 
the idea we would like to cooperate on a new authorization 
after 16 years, but when it gets down to any proposal, instead 
of saying, well, could you adjust this or that, instead what we 
hear from the administration is, well, we like what we have 
just fine. And then we are not really given a response.
    I am going to continue to push this committee to tackle 
this issue. And I would like to be able to have a dialogue with 
both State, DOD, the White House about if we put proposals on 
the table, what is good, what is bad. In the what is bad 
category, you could make it more acceptable to at least the 
administration. It is our prerogative ultimately, but it would 
be more acceptable if you did the following.
    Would you commit to having that kind of back-and-forth 
dialogue and giving us your best advice on behalf of the 
administration on these questions?
    Ms. Newstead. Senator, I would be happy to commit to that. 
I am aware of the work that you and other members of the 
committee have done on this issue, and I certainly would be 
eager to be helpful on behalf of the Department, if confirmed.
    Senator Kaine. All right. Thank you.
    Thank you, Mr. Chair.
    Senator Isakson. Senator Young?
    Senator Young. Well, thank you, Mr. Chairman, for a second 
round here.
    I do not think I will have to go quite as quickly this go-
around, Ms. Newstead. But let me turn to something I had 
mentioned I was curious about, and it pertains to Customary 
International Humanitarian Law rule 55, which says the parties 
to the conflict must allow and facilitate rapid and unimpeded 
passage of humanitarian relief for civilians in need, which is 
impartial in character and conducted without any adverse 
distinctions, subject to the right of control. That is it in 
its entirety.
    On June 28, at my direction, my staff asked the Department 
of State whether the Saudi refusal to permit the delivery of 
U.S.-funded cranes to the port of Hodeidah constitute a 
violation of this rule. What is your personal professional 
answer to this question?
    Ms. Newstead. Well, Senator, first of all, I appreciate the 
opportunity to speak to that, and it is an important point. We 
did discuss it briefly.
    I certainly agree with you that it is extremely important 
that we promote compliance with the law of armed conflict by 
the Saudi-led coalition in Yemen for all the reasons that you 
have identified, sir, and at the prior hearing as well.
    I do think that the standard that you described raises many 
of the same questions as we were talking about in our prior 
round in relation to the Foreign Assistance Act. And I would 
only say that it would be my expectation, if confirmed, that I 
would be able to dig into this issue with the benefit of more 
consultation with the Department to be more specific in talking 
to you about the ways in which those standards are implicated 
here.
    Senator Young. I guess your answer would be the same as it 
relates to Saudi Arabia's compliance or noncompliance based on 
the same fact pattern. I am referring to in Yemen compliance 
with article 14 of the Additional Protocol 2 of the Geneva 
Conventions.
    Ms. Newstead. Yes, Senator. In order to give you a legal 
view that would really take account of all the factors, legal 
and factual and otherwise, I would want to have the opportunity 
to study that and consult more with the Department. But again, 
I can certainly say that I understand and agree with your focus 
on the issue.
    Senator Young. So if I do not appear frustrated, I am a bit 
frustrated. It took almost 3 months after my staff asked that 
question pertaining both to Customary International 
Humanitarian Law rule 55 and article 14 of the Additional 
Protocol 2 of the Geneva Conventions--3 months for me to get an 
answer. And the answer that we received was, quote, the 
Department of State is not able to provide Senator Young with 
an advisory legal opinion. Unquote.
    As a member of the Department of State's oversight 
committee and based on Congress' Article I constitutional 
authorities, what do you think? Do you believe that is an 
acceptable answer?
    Ms. Newstead. Well, Senator, of course, I was not part of 
the discussions in the Department, as you know. But I would say 
that it would be my hope that if I am confirmed, we could 
provide answers to you more quickly. And while I would 
certainly want to consult on where the Department's practices 
have been in terms of any limits the Department feels it needs 
to maintain, I would also seek to engage with you and your 
staff closely in discussing the legal standards and issues. And 
I know from our discussion yesterday, you had a number of 
particular questions about implications of what the Department 
had and had not done. It would be my expectation to work as 
closely with you as I could on those issues.
    Senator Young. Well, I do not think it is acceptable. 
Period. But thank you.
    Let me lastly return to one final matter. Will you please 
tell me how you define the term ``assistance'' in the Foreign 
Assistance Act, specifically telling me whether the definition 
of security assistance as defined in 22 U.S.C. 2304 applies to 
section 2378-1? If you would like me to say those numbers 
again, I am happy to. That is why I gave you the hearing 
transcript so you could familiarize yourself. And you seem 
quite conversant in the law. So I am impressed with that.
    Ms. Newstead. Thank you, Senator.
    Well, the definition, as I understand it, Senator, is quite 
broad under the act. It is a question of law that, if possible, 
I would prefer to come back to you on with the benefit of more 
consideration. But I believe that the stated principle is quite 
broad, and its application to the facts here, as I said, is 
something that I would like, if possible, to have the 
opportunity to discuss with the Department.
    Senator Young. I believe it is broad as well. And so I will 
just provide that and some other written questions to you for 
your response. Thank you so much.
    Ms. Newstead. Thank you, Senator.
    Senator Young. I yield back.
    Senator Isakson. Thank you, Senator.
    Thank you for your attendance today. Congratulations on 
your nomination. To your siblings, mothers, fathers, 
significant others that all came, thank you all for coming. 
Kids. Do not forget the kids. That is right.
    And I want to thank the members for being here.
    We will report to the committee soon. You will be hearing 
shortly on a markup and hopefully a vote on the floor shortly 
after that. We appreciate your commitment to the country and 
your willingness to accept this nomination.
    We stand adjourned.
    [Whereupon, at 3:00 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
      Submitted to Thomas L. Carter by Senator Benjamin L. Cardin

    Question 1.  What important actions have you taken in your career 
to date to promote human rights and democracy? What has been the impact 
of your actions?

    Answer. Throughout my career, I have demonstrated a commitment to 
defending and promoting human rights and democracy. Specifically, I 
have personally commanded United States Air Force C-141s on numerous 
international humanitarian missions throughout the world in support of 
U.S. objectives towards creating stability and saving lives. I've also 
flown in support of deploying U.S. forces in many other engagements 
wherein the United States leadership felt it necessary to defend 
democratic peoples in their respective countries. I was decorated for 
flying into an active combat zone in October 1983 inserting the 82nd 
Airborne Division into Grenada to rescue U.S. students endangered 
there.
    Further, I had the honor of monitoring Ukraine's very first 
parliamentary elections in 2006. It was truly an inspiration to see the 
Ukrainian's enthusiasm when we introduced ourselves as Americans, and 
to also watch entire voting locations work for over 24 hours straight 
to count the many paper ballots. These unique people really inspired me 
to continue my own polling manager duties back in South Carolina.

    Question 2. What will you do to promote, mentor, and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the representatives to 
        ICAO foster an environment that is diverse and inclusive?

    Answer. USICAO is a small mission with only five employees, and one 
supervisor other than myself. I will share my strong commitment to 
equal opportunity and to ensuring that each and every employee is 
treated with respect and dignity, and will maintain an open door policy 
to ensure that all in the mission know that they can reach out to me.

    Question 3.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 4.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in any country abroad.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to Jennifer Newstead by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Over the course of my career, I have worked in various 
capacities on issues relating to the promotion of human rights and 
democracy. Beginning in college and law school and continuing during my 
prior government service, I have devoted time to pro bono and other 
legal matters relating to combating violence against women. While 
serving as a Deputy Assistant Attorney General in the Office of Legal 
Policy at the Department of Justice in 2001, I worked on policy and 
regulatory actions relating to the implementation of the Trafficking 
Victims Protection Act of 2000 (TVPA), including the issuance of 
regulations in July 2001 providing protections for and assistance to 
human trafficking victims as their cases were investigated and 
prosecuted. Those regulatory actions, which DOJ issued jointly with the 
Department of State shortly after the release of the State Department's 
first Trafficking in Persons Report in July 2001, were part of the 
first wave of efforts to implement the TVPA, which were a priority of 
the Justice Department during my tenure there. In the years since my 
time at DOJ, there have been further legislative and regulatory 
enforcement efforts on these critical issues, and today those efforts, 
and the State Department's annual TIP Report, remains a principal 
diplomatic tool to engage foreign governments on human trafficking 
issues.
    During my time as General Counsel of OMB, I had the opportunity to 
work on various legal issues which impacted humanitarian assistance 
efforts, including implementation of the President's Emergency Plan for 
AIDS Relief. In private practice, I have worked on pro bono matters on 
various issues relating to orders of protection for victims of domestic 
violence, resentencing of criminal defendants, and promotion of civics 
education.
    If confirmed as Legal Adviser, it would be my privilege to support 
the Department's ongoing efforts to promote human rights and democracy.

    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I recognize the important efforts within the State 
Department to promote a workforce that reflects the diversity of the 
American people. Like the rest of the Department, the Office of the 
Legal Adviser should foster an atmosphere of diversity and inclusion. 
If confirmed, I will take seriously the role of mentor to the employees 
in the office and will be personally committed to supporting the goals 
of diversity and inclusion.

    Question 3.  What steps will you take to ensure each of the 
supervisors at the Office of the Legal Adviser are fostering an 
environment that is diverse and inclusive?

    Answer. I am firmly committed to equal employment opportunity 
principles. If confirmed, I will work with the supervisors in the 
Office to foster a work environment that recognizes the contributions 
of all employees and will encourage all supervisors to take available 
courses on equal employment opportunity principles, diversity, and 
related issues and to promote an atmosphere of transparency by 
providing opportunities to all employees. I will also urge supervisors 
to underscore the importance of valuing and respecting diversity when 
they mentor junior colleagues.

    Question 4.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, to exercise leadership within the 
Department to promote compliance with those laws and rules and to raise 
concerns that I may have through appropriate channels.

    Question 5.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, to exercise leadership within the 
Department to promote compliance with those laws and rules, and to 
raise concerns that I may have through appropriate channels.

    Question 6.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

    Question 7.  What legal frameworks govern the U.S. use of lethal 
force abroad, including through the use of armed drones? How should the 
U.S. determine if it is in an armed conflict such that international 
humanitarian law applies?

    Answer. There is no legal question that is more consequential, or 
more serious, than the question of when and under what circumstances 
the United States may use force. If confirmed, I will be committed to 
providing the best possible legal advice to the Secretary and the U.S. 
Government concerning these legal questions.
    With respect to your first question, I generally understand that 
the President's principal current domestic law authorities to use 
military force abroad include his constitutional powers as Commander in 
Chief and Chief Executive, the Authorization for Use of Military Force 
of 2001, and the Authorization for Use of Military Force against Iraq 
Resolution of 2002. In addition to considering domestic legal issues, 
if confirmed I would also want to give careful consideration to whether 
any proposed use of military force abroad would be consistent with 
applicable international law, including the body of international law 
that governs the resort to the use of force (the jus ad bellum) and the 
law governing the conduct of hostilities (the law of armed conflict, 
international humanitarian law, or jus in bello).
    With respect to your second question, the Geneva Conventions of 
1949 essentially refer to two categories of conflict: ``cases of 
declared war or any other armed conflict which may arise between two or 
more of the High Contracting Parties'' (sometimes referred to as 
international armed conflicts) and conflicts ``not of an international 
character.'' The question of whether an armed conflict exists in any 
particular situation is highly fact-dependent, and the applicable 
standards under international law will vary depending on the category 
of conflict. If confirmed, when assessing whether any particular 
situation constitutes an armed conflict, I would take into account the 
jurisprudence of U.S. courts, including the U.S. Supreme Court, as well 
as the legal positions articulated by the United States in the past. I 
would also want to consider, as appropriate to the circumstances, the 
practice and statements of other States, international tribunals, and 
qualified commentators on international law.
    Finally, if confirmed, I would also expect to consult with my 
colleagues in the Office of the Legal Adviser as well as with my 
counterparts in other U.S. Government departments and agencies, 
including the Department of Justice's Office of Legal Counsel, on these 
issues, including whenever the United States is faced with the need to 
consider the use of force, whether through the use of armed drones or 
otherwise.

    Question 8.  Should the U.S. accept the conclusion of the U.N. 
Human Rights Committee that the International Covenant on Civil and 
Political Rights applies extra-territorially? If not, what 
international law applies to U.S. officials and forces operating abroad 
outside of armed conflict situations? More specifically, what 
international law applies to U.S. drone strikes conducted outside of 
armed conflict situations?

    Answer. The International Covenant on Civil and Political Rights 
(ICCPR) contains express language setting forth the territorial scope 
of its application. Article 2(1) of the ICCPR states that each State 
Party undertakes obligations with respect to ``individuals within its 
territory and subject to its jurisdiction.'' I understand that the 
United States' position is that the ICCPR applies only to individuals 
who are both within the territory of a State Party and within that 
State Party's jurisdiction. The United States has stated that this 
position is based on the text of the treaty, an application of 
longstanding international legal principles of treaty interpretation, 
and the treaty's negotiating history.
    I understand that the Human Rights Committee has expressed a 
contrary view that a State Party's ICCPR obligations should apply not 
only to individuals who are within its territory, but also to 
individuals located outside its territory who are subject to its 
jurisdiction under certain circumstances. I also understand that the 
observations, recommendations and general comments adopted by the Human 
Rights Committee are not binding on the States Parties and do not 
represent authoritative interpretation of State Party obligations.
    As your question suggests, I recognize that there are divergent 
views among the U.N. Human Rights Committee, human rights 
organizations, and among governments, on international law questions 
related to ongoing counter-terrorism operations against groups like Al 
Qa'eda and ISIS, and that a key point of potential divergence is on the 
question of whether the United States or one of its Coalition Partners 
is or is not operating in the context of an ongoing armed conflict when 
it takes a particular military action. If confirmed, I will consult my 
colleagues at the Department of State and my counterparts in other U.S. 
Government departments and agencies to ensure that I provide the best 
possible legal advice to the Department and to the U.S. Government 
concerning the international obligations of the United States 
applicable to U.S. officials and forces involved in counter-terrorism 
operations abroad, including by ensuring that the United States 
determines whether a particular action falls inside or outside of armed 
conflict situations.

    Question 9.  Do you support U.S. ratification of Protocols I and II 
to the Geneva Conventions of 1949? If not, why not?

    Answer. I am aware that President Reagan submitted Additional 
Protocol II to the Geneva Conventions of 1949, which would establish 
additional treaty obligations in relation to armed conflicts not of an 
international character, to the Senate for advice and consent to 
ratification in 1987, and that President Obama, following an 
interagency review, urged the Senate to act on that Protocol in 2011. I 
am also aware that the United States has historically had significant 
concerns with several aspects of Additional Protocol I to the Geneva 
Conventions of 1949, which establishes additional treaty obligations in 
relation armed conflicts of an international nature. For these reasons, 
President Reagan informed the Senate in 1987 of his decision not to 
submit that Protocol to the Senate, and no subsequent President has 
sought the Senate's advice and consent to the Protocol.
    I have not yet had the opportunity to form a considered legal view 
with respect to these matters, and if confirmed I would consult my 
colleagues at the Department of State and my counterparts in other U.S. 
Government departments and agencies, including the Department of 
Defense, before providing advice to policymakers. Given the strong 
support that Additional Protocol II has received from Presidents in 
both parties for the past thirty years, and given the predominance of 
current non-international conflicts of the sort that are the subject of 
Additional Protocol II, if confirmed I would make it a priority to 
review the current administration's views on the ratification of 
Additional Protocol II with any necessary reservations, understandings 
and declarations. If confirmed, I would look forward to engaging with 
my counterparts in other U.S. Government departments and agencies and 
with interested Members of this committee and staff on this topic.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Jennifer Newstead by Senator Marco Rubio

    Question 1.  In Sokolow v. PLO, the Second Circuit surprisingly 
held that it was unconstitutional to apply the Anti-Terrorism Act in 
the exact fact pattern that the statute was designed to address: 
American citizens murdered by terrorists-in this case, Palestinian 
terrorists-acting overseas. Sokolow plaintiffs include Florida 
constituents Mr. Oz Joseph Guetta and his mother, Ms. Varda Guetta, and 
other American victims of Palestinian terrorism. In June 2017, the U.S. 
Supreme Court asked for the administration's views on this case. It is 
clearly a vital U.S. national security interest to combat international 
terrorism in all its forms. If confirmed, do you commit to supporting 
the Anti-Terrorism Act statute as written by Congress? If confirmed, do 
you commit to following up with me both to explain what the State 
Department's view is on Sokolow v. PLO, and to ensure that the State 
Department expeditiously provides its view on the matter to the 
Solicitor General?

    Answer. I sympathize deeply with the injuries suffered by the 
Guetta family, and other families participating in this case, and 
condemn the acts of terrorism that caused their injuries. I share your 
concern and commitment to combating international terrorism and 
protecting American citizens abroad. I also recognize the important 
purpose of the Antiterrorism Act in providing a federal forum for U.S. 
victims of international terrorism.
    If confirmed, I would be committed to providing the best possible 
legal advice to the Secretary and our policymakers, including with 
respect to defending the integrity of the Antiterrorism Act and 
applying that statute as written by Congress and in light of relevant 
judicial decisions. I understand that on June 26, the Supreme Court 
asked for the views of the U.S. Government on the petition for 
certiorari in Sokolow v. Palestine Liberation Organization, No. 16-1071 
(S. Ct.), which seeks review of the decision by the U.S. Court of 
Appeals for the Second Circuit holding that the District Court lacked 
personal jurisdiction over the defendants. The Office of the Solicitor 
General at the Department of Justice has the lead in developing, with 
inputs from other interested agencies, U.S. Government views on the 
petition. Upon filing, this will become the view of record for the U.S. 
Government. If confirmed, I will ensure that the State Department 
continues to provide its views on this case and all other cases 
implicating State Department equities to the Solicitor General as 
expeditiously as possible, and remains in close and effective 
coordination with the Department of Justice on such matters. If 
confirmed, I would also welcome the opportunity to follow up with your 
office on this matter, consistent with my professional responsibilities 
when providing legal advice to the Secretary of State.

    Question 2.  The Foreign Corrupt Practices Act is an important tool 
to combat corruption abroad. It holds American businesses accountable 
for aiding the most oppressive regimes in the world from plundering 
their people's wealth. Ms. Newstead, you've advised clients on 
complying with the Foreign Corrupt Practices Act. Is the FCPA 
effective? Are there areas where it can be improved? What could 
Congress do to tighten it?

    Answer. As your question reflects, the Foreign Corrupt Practices 
Act (FCPA) is a powerful tool for combatting corruption abroad, and its 
vigorous enforcement over several decades has substantially contributed 
to reducing corrupt activities and increasing domestic anti-corruption 
enforcement by other countries. As Congress recognized when it passed 
the Foreign Corrupt Practices Act (FCPA), corruption imposes enormous 
costs both at home and abroad, leading to market inefficiencies and 
instability and an unfair playing field for honest businesses. Even 
more fundamentally, corrupt activities alienate citizens from their 
political leaders and institutions, and undermine political stability 
and economic development.. By enacting a strong foreign bribery 
statute, Congress sought to help U.S. companies resist corrupt demands 
and to hold them accountable when they failed to do so, while also 
addressing the destructive foreign policy ramifications of 
transnational bribery.
    Enforcement of the FCPA has been effective by many objective 
measures, including the deterrent effect of the sheer number of 
resolutions reached by the Department of Justice (DOJ) and Securities 
and Exchange Commission (SEC) with companies subject to FCPA 
enforcement, and the significant fines paid by many of those companies. 
Perhaps more important, the statute has been effective in encouraging 
U.S. and global businesses to adopt vigorous compliance regimes and 
internal controls designed to deter and prevent corrupt activities.
    Although the responsibility for enforcing the FCPA rests with the 
DOJ and SEC, I understand that the Department of State plays an 
important complementary role in working to address corruption abroad 
and to level the playing field for U.S. businesses. In particular, the 
Department of State has focused on the implementation of international 
commitments relating to anti-corruption, including through its 
leadership role during the negotiation of the Organization for Economic 
Cooperation and Development (OECD) Anti-Bribery Convention, which 
effectively ``internationalized'' the FCPA by requiring all parties to 
pass their own similar transnational bribery statutes; and by 
participating in the Working Group on Bribery, which is responsible for 
monitoring the implementation and enforcement of the Convention by its 
parties.
    The FCPA is an important and effective tool for combating 
corruption abroad, but it can be particularly effective as one piece of 
an ever-increasing global network of transnational bribery statutes 
enforced with an emphasis on international cooperation, as recently 
demonstrated by the landmark global settlements reached with Odebrecht 
and VimpelCom. Congress can therefore help support the effective 
enforcement of the FCPA by supporting the Department of State's global 
anti-corruption and good governance promotion efforts, but we 
ultimately defer to DOJ as the U.S. Government's lead enforcement 
agency regarding the need for any legislative reforms to the FCPA.

    Question 3.  In March 2010, the Government of Macau revoked the air 
operating certificate of an American-owned airline-Viva Macau-on 
baseless grounds, which essentially destroyed the value of the company. 
There is strong evidence that the revocation was motivated by the 
desire of Chinese state-owned enterprises to remove competition from 
the market. For the last seven years, the State Department, Commerce 
Department and to a lesser extent USTR have been requested to take 
action. For the last four years, the Viva Macau expropriation case has 
been in the hands of the Legal Advisor. Are you familiar with the case? 
If so, do you believe it was inappropriate or illegal for China to 
expropriate an American-owned company? If confirmed, do you commit to 
examining the case?

    Answer. In my current position as a nominee, I have not had the 
opportunity to familiarize myself with the details of this particular 
matter. But, it is my understanding that the Department's review of the 
Viva Macau espousal request has been completed and that the investors' 
representative is being informed of the Department's decision. I also 
understand that a telephone briefing has been offered to Senate staff 
concerning the case?. If confirmed, I commit that I will examine this 
matter closely, and will ensure that all requests for espousal before 
my office are considered carefully.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Jennifer Newstead by Senator Todd Young

    Question 1.  Ms. Newstead, are you aware of the following facts?:

   The Saudi-led coalition deliberately and precisely bombed the 
        cranes at the port of Hodeidah that were used to offload 
        humanitarian supplies.
   The Saudi-led coalition bombed a World Food Programme warehouse in 
        Hodeidah.
   Despite the establishment of the U.N. Verification and Inspection 
        Mechanism for Yemen (UNVIM) created to obviate the need for 
        Saudi-led coalition inspections, the Saudi-led coalition 
        continues to delay shipments going into Hodeidah for days. The 
        United Nations Office for Project Services (UNOPS) can provide 
        monthly data confirming this fact.
   In January, when the World Food Programme tried to deliver the four 
        USAID-funded cranes to Hodeidah to offload humanitarian 
        supplies to replace the capacity destroyed by the Saudi-led 
        coalition, the Saudi's would not permit the replacement cranes 
        to be delivered, literally forcing the vessel carrying the 
        cranes to turn around.
   The Saudi-led coalition has diverted, on several occasions, vessels 
        to ports they or their allies' control, more concerned about 
        who control the port than which Yemenis most need the aid.
   On June 27, the World Food Programme asked the Saudis again for 
        permission to deliver the four cranes. The Saudis continue to 
        be unresponsive on the cranes.
   When asked why they won't permit the delivery of the cranes, Saudi 
        officials consistently cite the fact that the Houthis control 
        the port as a leading excuse.

    Answer. I have reviewed the factual statements set forth above. 
Although as a nominee, I have not had the opportunity to consult with 
experts on the facts of this situation within the Department, I 
appreciate your raising these specific concerns and have read reports 
that reflect concerns about the grave humanitarian situation in Yemen. 
I agree that this situation warrants a strong response by the United 
States, including a focus on concrete actions which can be taken to 
alleviate the suffering.
    I understand that the Department is committed to helping alleviate 
these conditions and to reaching a political resolution between the 
parties. Secretary Tillerson stated on October 22 during his joint 
press conference with Saudi FM al-Jubeir in Riyadh that he had 
discussed the Yemen conflict with Saudi counterparts during his 
meetings in Riyadh. I understand the Department continues to actively 
work on this issue, and will also be providing its official views on 
the factual and legal issues raised by your question in a letter to be 
conveyed separately alongside these QFR responses. I also understand 
that the Department also stands ready to brief you further on the 
issues you raise in this question.
    If confirmed, I will work with my colleagues to ensure that we are 
considering all available tools to support policies to help improve the 
situation in Yemen. I commit to consulting with the Department's 
experts to ensure that I and my legal team can, based on a complete 
understanding of the available facts, provide legal advice to 
policymakers concerning courses of action to alleviate the humanitarian 
situation in Yemen, including on the question of whether activities by 
the Saudi-led Coalition are inconsistent with any provision of 
applicable domestic or international law. As I mentioned during the 
hearing, I would also welcome the opportunity to engage with interested 
Members of this committee and staff to discuss these issues, mindful of 
my professional responsibilities regarding legal advice to the 
Secretary of State.

    Question 2.  On October 19, the Acting Director of USAID's Office 
of Food For Peace, Mr. Matthew Nims, testified that the Saudi-led 
coalition is using food as a weapon of war in Yemen. Please review the 
transcript of my exchange with Mr. Nims on October 19 and provide your 
response.

    Answer. I have reviewed the transcript of your exchange with Mr. 
Matthew Nims. Although I have not had an opportunity to consult with 
the experts at the State Department about these issues, I share your 
concerns about the grave humanitarian situation in Yemen, and I 
appreciate how important the port of Hudaydah is to mitigating that 
situation. I understand the Department is committed to helping 
alleviate the humanitarian situation in Yemen as well. If confirmed, I 
will work with my colleagues to ensure that we are considering all 
available tools to support policies to help improve this situation.
    If confirmed, I commit to consulting with experts in the Department 
of State and other departments and agencies in order to ensure that I 
and my legal team can, based on a complete understanding of the 
available facts, provide legal advice to policymakers concerning 
courses of action to alleviate the situation in Yemen, including on the 
question of whether activities by the Saudi-led Coalition are 
inconsistent with any provision of applicable domestic or international 
law. I believe that it is critically important to promote compliance 
with the law of armed conflict by members of the Saudi-led coalition 
and by all of our partners, and if confirmed I will be a strong 
advocate for this view within the Department and with colleagues in 
other agencies.

    Question 3.  Section 620-i of the Foreign Assistance Act (22 U.S. 
Code Sec. 2378-1(a)) states the following: ``No assistance shall be 
furnished under this chapter or the Arms Export Control Act [22 U.S.C. 
2751 et seq.] to any country when it is made known to the President 
that the Government of such country prohibits or otherwise restricts, 
directly or indirectly, the transport or delivery of United States 
humanitarian assistance.'' If the facts above are correct, would it be 
your professional, personal, and legal judgment that Saudi Arabia has 
``prohibit[ed] or otherwise restrict[ed], directly or indirectly, the 
transport or delivery of United States humanitarian assistance''? 
Please provide a detailed justification for your answer.

    Answer. As noted in my answer to the previous questions, I am very 
concerned about the grave humanitarian situation in Yemen. I share your 
concern that this situation warrants a strong response by the United 
States, including a focus on concrete actions which can be taken to 
alleviate the suffering.
    As your question indicates, the ultimate determination whether this 
provision of the Foreign Assistance Act has been triggered is a highly 
fact-specific inquiry. As a nominee I have not had the opportunity to 
consider the full range of classified and unclassified information 
available to the Department on this issue, or to consider how the 
Department has previously interpreted and applied Section 620I. Based 
only on the facts listed above, which include descriptions of actions 
which have to date prevented delivery of the four replacement cranes to 
Hudaydah, and the plain language of the provision, it is my judgment 
that there is a substantial question whether the responsible parties 
have ``prohibited'' or ``restricted'' the delivery of United States 
humanitarian assistance under the statute. If confirmed as Legal 
Adviser, I would want to consider additional information before 
reaching a final legal view and providing advice to policymakers on 
this issue. Relevant considerations could include, among other things, 
whether legitimate concerns exist regarding the control of the Hudaydah 
port by the Houthis and related security risks, or risks that delivery 
of aid through the port would be compromised. It would also be relevant 
in my view to consider the broader circumstances involving the 
provision of U.S. foreign assistance to Yemen, such as whether the act 
of preventing delivery of the cranes has effectively prevented the 
delivery of all U.S. foreign assistance to address the crisis, or 
whether other means of delivering such aid are operating; and the role 
of the Saudi Government in such efforts.
    Finally, I would wish to consider the reasoning of any prior 
interpretations by the Office of the Legal Adviser on the application 
of Section 620I, to ensure that any conclusions reached by the Office 
on the application of the statute in this circumstance is consistent 
with the interpretations that the Office has provided to the provision 
over time. This is particularly relevant here because, based on my 
limited research to date, there do not appear to be prior judicial 
decisions providing guidance on the interpretation or application of 
Section 6201.
    If confirmed, I would make it a priority to study this issue in 
greater depth. I would consult with relevant U.S. Government and non-
governmental experts in order to provide legal guidance to State 
Department decision-makers on the legal standard under section 620I of 
the Foreign Assistance Act of 1961 (FAA) as they continue, in this 
context, to assess the application of that standard to the facts before 
them.
    As I mentioned during the hearing, I would also welcome the 
opportunity to engage with interested Members of this committee and 
staff to discuss these issues, mindful of my professional 
responsibilities regarding legal advice to the Secretary of State.

    Question 4.  If Saudi Arabia has restricted directly or indirectly 
the transport or delivery of U.S. assistance, do you believe this 
statute would require-absent a Presidential determination that an 
exception is the national security interest of the United States-that 
no U.S. assistance shall be furnished under this chapter or the Arms 
Export Control Act [22 U.S.C. 2751 et seq.] to Saudi Arabia?

    Answer. Section 620I prohibits provision of assistance under the 
FAA or the Arms Export Control Act (AECA) to a country when it is made 
known to the President (or the Secretary, under delegated authority) 
that the Government of such country prohibits or otherwise restricts, 
directly or indirectly, the transport or delivery of U.S. humanitarian 
assistance. If Saudi Arabia has directly or indirectly restricted the 
transport or delivery of U.S. humanitarian assistance, absent a 
determination under the statute, then U.S. assistance under the Foreign 
Assistance Act or the Arms Export Control Act would be restricted under 
this provision. As you have noted, the provision includes a waiver 
authority by which assistance may be provided to the country under such 
circumstances if there is a determination that to do so is in the 
national interest, and that determination is notified to the 
appropriate Congressional committees.

    Question 5.  If confirmed, do you commit to ensuring within 30 days 
that your office provides a determination to the Secretary of State 
whether Saudi Arabia has prohibited or otherwise restricted, directly 
or indirectly, the transport or delivery of United States humanitarian 
assistance to Yemen?

    Answer. Yes, if confirmed, I commit to working with the staff of 
the Office of the Legal Adviser and consulting with relevant experts 
across the Department and the U.S. Government, in order to provide 
views to the Secretary of State or other decision makers within the 
Department on that question within 30 days.

    Question 6.  If confirmed, do you commit to doing all that you can 
within 45 days to encourage the Department of State to provide its 
determination to the President and the Senate Committee on Foreign 
Relations--consistent with 22 U.S. Code Sec. 2378-1--whether Saudi 
Arabia has prohibited or otherwise restricted, directly or indirectly, 
the transport or delivery of United States humanitarian assistance in 
Yemen?

    Answer. Yes, if confirmed, I commit to working with the staff of 
the Office of the Legal Adviser and decision makers within the 
Department to encourage the Department to convey its official views on 
this question to the committee within 45 days.

    Question 7.  If Saudi Arabia has not allowed or facilitated the 
rapid and unimpeded passage of humanitarian relief for civilians 
through the port of Hodeidah due to the fact that they or their allies 
do not control the port, do you believe that would be a violation of, 
or be inconsistent with, Rule 55 of Customary International 
Humanitarian Law?

    Answer. It is critically important in my view to promote compliance 
with the law of armed conflict by members of the Saudi-led coalition 
and by all of our partners. If confirmed, I will be a strong proponent 
of this view within the Department and with colleagues in other 
departments and agencies, as well as an advocate for the rule of law 
and respect for international law.
    The starting point for my analysis in response to this question 
would be to consider the status of the Rule 55 of the International 
Committee of the Red Cross's (ICRC) Study on Customary International 
Law as a source of authority under international law. Although, as a 
nominee, I have not had the opportunity to consult with the Department 
on this important legal issue, I am aware that the Department of State, 
through its former Legal Adviser, John Bellinger, and the Department of 
Defense, through its prior General Counsel, William J. Haynes, have in 
the past raised concerns about the substance and underlying methodology 
of this study, which were initially set forth in a 2006 letter to the 
ICRC on this topic.
    If confirmed, I would make it a priority to engage with my 
colleagues in the Office of the Legal Adviser on these important 
issues. As I mentioned during the hearing I would also welcome the 
opportunity to engage with interested Members of this committee and 
staff to discuss these issues, mindful of my professional 
responsibilities regarding legal advice to the Secretary of State.

    Question 8.  Article 14 of the Additional Protocol Two of the 
Geneva Conventions says the following: ``Starvation of civilians as a 
method of combat is prohibited. It is therefore prohibited to attack, 
destroy, remove or render useless, for that purpose, objects 
indispensable to the survival of the civilian population, such as 
foodstuffs, agricultural areas for the production of foodstuffs, crops, 
livestock, drinking water installations and supplies and irrigation 
works.'' If Saudi Arabia has attacked, destroyed, removed, or rendered 
useless objects indispensable to the survival of the civilian 
population, including objects to help prevent starvation, would that 
represent a violation of Article 14 by Saudi Arabia?

    Answer. As mentioned in my answer to your previous question, I 
believe that it is critically important to promote compliance with the 
law of armed conflict by members of the Saudi-led coalition and by all 
of our partners, and if confirmed I will be a strong proponent of this 
view within the Department and with colleagues in other departments and 
agencies, as well as an advocate for the rule of law and respect for 
international law.
    If confirmed, I commit to working with experts in the Department of 
State and other Departments in order to assess relevant facts and law 
and provide legal guidance to U.S. Government officials on issues 
related to the ongoing conflict in Yemen, including the possible 
application of Article 14 of Additional Protocol II to the Saudi-led 
coalition's actions. In the situation posed by your question, I would 
generally agree that if Saudi Arabia or any other state which is a 
party to Articles 14 of Additional Protocol II has taken actions in an 
armed conflict to which its Additional Protocol II obligations apply, 
to ``destroy, remove or render useless for that purpose [i.e., for the 
purpose of starvation of civilians] objects indispensable to the 
survival of the civilian population,'' that state would be in violation 
of its obligations under that provision. In order to reach a legal 
conclusion whether any violation of these principles has occurred in 
relation to the situation in Yemen, I would, if confirmed, undertake a 
thorough legal analysis with benefit of the full information available 
to the Department and the opportunity to consult with my colleagues in 
the Department on these issues. If confirmed, I would also welcome the 
opportunity to engage with you and interested Members of this committee 
and staff to discuss these issues, mindful of my professional 
responsibilities regarding legal advice to the Secretary of State.

    Question 9.  In a September 26, 2017, hearing, I asked Ms. Kaidanow 
whether she was willing to foreclose the possibility that Saudi Arabia 
has committed human rights violations in Yemen. She responded, ``No, in 
fact, I think the Saudis themselves have--have indicated that in the 
past, that they have done some things that they find problematic, and 
that they are trying to address some of those issues.'' If Saudi Arabia 
has engaged ``in a consistent pattern of gross violations of 
internationally recognized human rights'', what prohibitions would be 
applied with respect to U.S. assistance to Saudi Arabia under 22 U.S.C. 
2304?

    Answer. I understand that Section 502B of the FAA (22 U.S.C. 2304) 
restricts security assistance, as defined in subsection (d)(2) for 
purposes of that provision, to any country the Government of which 
engages in a consistent pattern of gross violations of internationally 
recognized human rights. If Saudi Arabia or any other country has 
engaged in conduct within the terms of that statute, security 
assistance to that country would be restricted by the statute.
    As I mentioned during my hearing last week, the Office of the Legal 
Adviser plays a unique role supporting the Department's mission to 
promote our values, the rule of law, and respect for human rights and 
democracy around the world. In my view it is critically important to 
promote compliance with the law of armed conflict by members of the 
Saudi-led coalition and by all of our partners, and if confirmed I will 
be a strong proponent of this view within the Department and with 
colleagues in other departments and agencies, as well as an advocate 
for the rule of law and respect for international law.
    If confirmed, as I mentioned during the hearing I would also 
welcome the opportunity to engage with you and interested members of 
this committee and staff to discuss these issues, mindful of my 
professional responsibilities regarding legal advice to the Secretary 
of State.

    Question 10.  If confirmed, do you commit to ensuring within 30 
days that your office provides a determination to the Secretary of 
State whether Saudi Arabia has engaged ``in a consistent pattern of 
gross violations of internationally recognized human rights'' and 
whether the provisions under 22 U.S.C. 2304 have been triggered?

    Answer. Yes, if confirmed, I commit to working with the staff of 
the Office of the Legal Adviser and consulting with relevant experts 
across the Department and the U.S. Government in order to provide views 
to the Secretary of State or other decision makers within the 
Department on these questions within 30 days.
    As I mentioned during my hearing last week, the Office of the Legal 
Adviser plays a unique role supporting the Department's mission to 
promote our values, the rule of law, and respect for human rights and 
democracy around the world. In my view it is critically important to 
promote compliance with the law of armed conflict by members of the 
Saudi-led coalition and by all of our partners, and if confirmed I will 
be a strong proponent of this view within the Department and with 
colleagues in other departments and agencies, as well as an advocate 
for the rule of law and respect for international law.

    Question 11.  If confirmed, do you commit to doing all that you can 
within 45 days to encourage the Department of State to provide this 22 
U.S.C. 2304 determination with respect to Saudi Arabia's actions in 
Yemen to the Senate Committee on Foreign Relations?

    Answer. Yes, if confirmed, I commit to working with the staff of 
the Office of the Legal Adviser and decision makers within the 
Department to encourage the Department to convey its official views on 
this question to the committee within 45 days.
    As I mentioned during my hearing last week, the Office of the Legal 
Adviser plays a unique role supporting the Department's mission to 
promote our values, the rule of law, and respect for human rights and 
democracy around the world. In my view it is critically important to 
promote compliance with the law of armed conflict by members of the 
Saudi-led coalition and by all of our partners, and if confirmed I will 
be a strong proponent of this view within the Department and with 
colleagues in other departments and agencies, as well as an advocate 
for the rule of law and respect for international law.

    Question 12.  If confirmed, do you commit to ensuring your office 
within 45 days examines whether Saudi Arabia has committed potential 
violations in Yemen of any end-use agreements concerning the use of 
U.S. origin military equipment provided to Saudi Arabia pursuant to the 
Arms Export Control Act?

    Answer. Yes, if confirmed, I commit to working with the staff of 
the Office of the Legal Adviser and experts in the Department of State 
and other Departments to examine both the law and facts relevant to 
end-use agreements concerning use of U.S. origin military equipment 
provided to Saudi Arabia pursuant to the Arms Export Control Act in 
relation to the situation in Yemen within 45 days.

    Question 13.  If violations are found, do you commit to doing all 
you can to encourage the Department of State to ensure the Senate 
Foreign Relations Committee is notified promptly in writing regarding 
those violations?

    Answer. If confirmed, I commit to working with experts in the 
Department of State and other Departments in order to provide legal 
advice on issues related to compliance with end-use agreements 
concerning use of U.S. origin military equipment provided to Saudi 
Arabia pursuant to the Arms Export Control Act and to do all I can to 
encourage the Department to provide appropriate information to the 
committee, including in accordance with provisions regarding reporting 
to Congress under section 3 of the Arms Export Control Act.

    Question 14.  How do you define the term ``assistance'' in 22 
U.S.C. 2378-1 and does the definition for ``security assistance'' as 
defined in 22 U.S.C. 2304 apply to ``assistance'' in Section 2378-1?

    Answer. I understand that the term ``assistance'' is not defined in 
section 620I of the FAA (22 U.S.C. 2378-1), although, as I mentioned at 
my hearing, that term is susceptible to a broad reading. I have not had 
the benefit of consultations with the Department to understand how this 
term has been interpreted and applied over time. In contrast, by its 
terms, section 502B(d) defines ``security assistance'' only for 
purposes of section 502B.
    If confirmed, I would make it a priority to study this issue 
further in order to provide legal guidance to State Department 
decision-makers on these issues. As I mentioned during my hearing, I 
would also welcome the opportunity to engage with interested members of 
this committee and staff to discuss these issues, mindful of my 
professional responsibilities regarding legal advice to the Secretary 
of State.

    Question 15.  If confirmed, do you commit to maintaining an open 
and regular line of communication with me and my office and doing all 
you can to ensure the Department of State provides timely and 
responsive answers to my office on questions related to your 
responsibilities? If there is a good faith delay in responding, do you 
commit to keeping my office updated?

    Answer. If confirmed, I can assure you that, working with my 
colleagues in the Office of the Legal Adviser and other colleagues at 
the Department of State, I would strive to ensure that the Department 
provides timely and responsive answers to questions raised by you or 
your staff related to my responsibilities, mindful of my professional 
responsibilities regarding legal advice to the Secretary of State. I 
also commit to working with my colleagues at the Department to ensure 
that your office is kept updated on the status of any outstanding 
questions from you or your staff. I thank you for your attention to 
matters of enormous importance to the Department and to the U.S. 
Government as a whole, and I will welcome the opportunity to consult on 
these matters with you if I am confirmed.
Follow-up Questions Submitted to Ms. Newstead by Senator Young
    Question 1.  In your responses to my questions for the record, you 
wrote the following:

        Based only on the facts listed above, which include 
        descriptions of actions which have to date prevented delivery 
        of the four replacement cranes to Hudaydah, and the plain 
        language of the provision, it is my judgment that there is a 
        substantial question whether the responsible parties have 
        ``prohibited'' or ``restricted'' the delivery of United States 
        humanitarian assistance under the statute. If confirmed as 
        Legal Adviser, I would want to consider additional information 
        before reaching a final legal view and providing advice to 
        policymakers on this issue. Relevant considerations could 
        include, among other things, whether legitimate concerns exist 
        regarding the control of the Hudaydah port by the Houthis and 
        related security risks, or risks that delivery of aid through 
        the port would be compromised.

    This response raises several questions. If confirmed, regarding 
your comment on ``related security risks'', I encourage you to examine 
the logic of an argument that says the Houthis would destroy cranes in 
a port they control and that are being used to facilitate the delivery 
of food and medicine for people in areas they control. I believe the 
only material security risk to the cranes would be another attack on 
the port by the Saudi-led coalition.
    You write that ``risks that delivery of aid through the port would 
be compromised'' would be a relevant consideration. Are you aware of 
the following testimony by Mr. Matthew Nims, the acting director of the 
Office of Food for Peace at the United States Agency for International 
Development on July 18? He said the following (emphasis added):

        First off, the U.S. Government and USAID and particular in my 
        office, you know, takes any allegations of the diversion of 
        humanitarian activities very seriously. And this is paramount 
        in all of our operations. You know, this humanitarian need as 
        we--this humanitarian need is really been held off by our 
        continued operations that are been crucial through the ports as 
        well as our partners. In this situation we have taken this very 
        seriously, we have investigated this through our partners, 
        we've investigated this to a degree on our own and we have had 
        no evidence of any large scale humanitarian diversions 
        occurring at the port at all. We are able to say this because 
        of the integrity of our partners and because of the methods 
        that they use as well as our own methods of third-party 
        monitoring and other systems that we employ to ensure that this 
        food gets to where it's supposed to go.

    If confirmed, I encourage your office to not take assertions by the 
Saudis and others regarding the diversion of humanitarian aid at the 
port of Hodeidah at face value and instead check with the experts at 
USAID and the World Food Programme.

    Answer. I appreciate your additional perspectives on this question 
and, if confirmed, I commit, with the benefit of these perspectives, to 
engaging closely with my colleagues at the Department and at USAID on 
this important issue. I also believe it is important to take account of 
the information and perspectives of non-governmental organizations 
including the World Food Programme, and would do so if confirmed. 
Finally, I commit to reviewing this issue in depth, if confirmed, and 
meeting with you within 30 days of my taking up the position of Legal 
Adviser to share my assessments, consistent with my professional 
obligations to the Department.

    Question 2.  You also wrote the following (emphasis added):

        It would also be relevant in my view to consider the broader 
        circumstances involving the provision of U.S. foreign 
        assistance to Yemen, such as whether the act of preventing 
        delivery of the cranes has effectively prevented the delivery 
        of all U.S. foreign assistance to address the crisis, or 
        whether other means of delivering such aid are operating; and 
        the role of the Saudi Government in such efforts.

    Why is the standard ``effectively prevented the delivery of all 
U.S. foreign assistance?'' You wrote, ``If Saudi Arabia has directly or 
indirectly restricted the transport or delivery of U.S. humanitarian 
assistance, absent a determination under the statute, then U.S. 
assistance under the Foreign Assistance Act or the Arms Export Control 
Act would be restricted under this provision.'' Yet, you then establish 
a standard of preventing the delivery of ``all U.S. foreign 
assistance?'' How do you explain this discrepancy?

    Answer. Thank you for the opportunity to address your concern. As 
indicated in my response to a previous question, and as you note above, 
the statutory standard is whether the transport or delivery of U.S. 
humanitarian assistance has been directly or indirectly prohibited or 
restricted by any government. The statutory language does not include a 
requirement that ``all'' foreign assistance be directly or indirectly 
restricted. In the portion of my answer you identify above, I was 
addressing one of many possible factual circumstances which, if true, 
could be relevant to analyzing whether the statutory standard has been 
met. However, I did not intend to suggest that the statute could only 
be triggered if there was a determination that ``all'' humanitarian 
assistance has been prevented. In my view, the statute itself, in 
setting the standard for triggering the restriction, does not include a 
requirement that ``all'' humanitarian assistance be directly or 
indirectly restricted.
    As indicated in my response to a prior question, an assessment 
whether the assistance restriction under section 620I of the Foreign 
Assistance Act has been triggered is a highly fact-specific inquiry. If 
confirmed, I would make it a priority to study this issue in greater 
depth. I commit to reviewing this issue fully, if confirmed, and 
meeting with you within 30 days of my taking up the position of Legal 
Adviser to share my assessments, consistent with my professional 
obligations to the Department.

    Question 3.  Consistent with your initial responses and your 
reading of the statute, do you re-affirm that even an indirect Saudi 
restriction of the transport or delivery of U.S. assistance would be 
enough to trigger 22 U.S. Code Sec. 2378-1? Do you agree that the other 
factors you raised regarding Saudi actions will not change this initial 
determination and the applicability of 22 U.S. Code Sec. 2378-1, but 
might inform a subsequent Presidential national security interest 
exception?

    Answer. Yes, I re-affirm, consistent with my initial responses, 
that section 620I prohibits provision of assistance under the FAA or 
the Arms Export Control Act (AECA) to a country when it is made known 
to the President (or the Secretary, under delegated authority) that the 
Government of such country prohibits or otherwise restricts, directly 
or indirectly, the transport or delivery of U.S. humanitarian 
assistance. It is my view that if Saudi Arabia has directly or 
indirectly restricted the transport or delivery of U.S. humanitarian 
assistance, then U.S. assistance under the Foreign Assistance Act or 
the Arms Export Control Act would be restricted under this provision. I 
also understand that the provision includes a waiver authority by which 
assistance may be provided to the country under such circumstances if 
there is a determination that to do so is in the national interest, and 
that determination is notified to the relevant Congressional 
committees. I commit to reviewing this issue fully, if confirmed, and 
meeting with you within 30 days of my taking up the position of Legal 
Adviser to share my assessments, consistent with my professional 
obligations to the Department.

    Question 4.  If the July 18, 2017, testimony by witnesses from 
USAID and the World Food Programme is accurate, would you agree that 
the Saudi-led coalition has at least indirectly restricted the 
transport or delivery of U.S. humanitarian assistance in Yemen?

    Answer. As indicated in my responses to previous questions, an 
assessment of whether the assistance restriction under section 620I of 
the Foreign Assistance Act has been triggered is a highly fact-specific 
inquiry. In my view, certain statements made in that hearing would, if 
accurate, raise a substantial question whether the responsible parties 
have indirectly restricted the transport or delivery of United States 
humanitarian assistance under the statute. As a nominee, I have not had 
the opportunity to consider the full range of classified and 
unclassified information available to the Department on this issue, or 
to consider how the Department has previously interpreted and applied 
Section 620I. If confirmed, I would make it a priority to study this 
issue in greater depth, and would certainly consider the testimony of 
the witnesses at the July 18, 2017 hearing as part of that analysis. I 
commit to reviewing this issue fully, if confirmed, and meeting with 
you within 30 days of my taking up the position of Legal Adviser to 
share my assessments, consistent with my professional obligations to 
the Department.
Additional Follow-Up Question Submitted to Ms. Newstead by Senator 
        Young

    Question 1.  Thank you for your responses to my follow-up questions 
for the record that I received on November 7, 2017. I am grateful for 
your answers. Overall, I believe your answers to my follow-up questions 
are substantive and responsive. However, there is one sentence in your 
response that is concerning and that I hope to clarify.
    In response to my questions, you wrote the following (emphasis 
added):

        Thank you for the opportunity to address your concern. As 
        indicated in my response to a previous question, and as you 
        note above, the statutory standard is whether the transport or 
        delivery of U.S. humanitarian assistance has been directly or 
        indirectly prohibited or restricted by any government. The 
        statutory language does not include a requirement that ``all'' 
        foreign assistance be directly or indirectly restricted. In the 
        portion of my answer you identify above, I was addressing one 
        of many possible factual circumstances which, if true, could be 
        relevant to analyzing whether the statutory standard has been 
        met. However, I did not intend to suggest that the statute 
        could only be triggered if there was a determination that 
        ``all'' humanitarian assistance has been prevented. In my view, 
        the statute itself, in setting the standard for triggering the 
        restriction, does not include a requirement that ``all'' 
        humanitarian assistance be directly or indirectly restricted.

    I am also grateful for this response to my subsequent question:

        Yes, I re-affirm, consistent with my initial responses, that 
        section 620I prohibits provision of assistance under the FAA or 
        the Arms Export Control Act (AECA) to a country when it is made 
        known to the President (or the Secretary, under delegated 
        authority) that the Government of such country prohibits or 
        otherwise restricts, directly or indirectly, the transport or 
        delivery of U.S. humanitarian assistance. It is my view that if 
        Saudi Arabia has directly or indirectly restricted the 
        transport or delivery of U.S. humanitarian assistance, then 
        U.S. assistance under the Foreign Assistance Act or the Arms 
        Export Control Act would be restricted under this provision.

    With the exception of the one emphasized sentence above, I view 
those answers as responsive and reflective of an accurate understanding 
of what 22 U.S. Code Sec. 2378-1(a) requires. However, your inclusion 
of that sentence underscores the concern I have raised and strikes me 
as inconsistent with the rest of your response. Based on your 
interpretation of the law, you say that even an indirect restriction of 
the transport or delivery by Saudi Arabia of U.S. humanitarian 
assistance would restrict the provision of U.S. assistance to Saudi 
Arabia under the Foreign Assistance Act or the Arms Export Control Act. 
Yet, you say that if Saudi Arabia were not restricting ``all'' 
assistance that ``could be relevant to analyzing whether the statutory 
standard has been met.'' That is not consistent with a plain reading of 
the law, and I am not clear how that statement can be reconciled with 
the remainder of your responses-unless you are referring only to 
paragraph (b). Again, I recognize that such a consideration might 
inform a national security exception under paragraph (b), but it is not 
relevant to paragraph (a).
    Pursuant to 22 U.S. Code Sec. 2378-1(a), do you agree that a direct 
or indirect restriction of the transport or delivery of U.S. 
humanitarian assistance would trigger paragraph (a) regardless of a 
number of other considerations, including whether ``all'' humanitarian 
assistance were being restricted or not?
    Do you agree that a variety of other considerations could inform a 
national security interest exception under paragraph (b) but are not 
relevant to paragraph (a)?

    Answer. I appreciate the opportunity to address your further 
questions on this issue. Let me first re-affirm, consistent with my 
prior responses, that by its terms, section 620I prohibits provision of 
assistance under the Foreign Assistance Act or the Arms Export Control 
Act to a country when it is made known to the President (or the 
Secretary, under delegated authority) that the Government of such 
country prohibits or otherwise restricts, directly or indirectly, the 
transport or delivery of U.S. humanitarian assistance. As noted in my 
prior responses, it is my view that if Saudi Arabia or any other 
country directly or indirectly prohibits or otherwise restricts the 
transport or delivery of U.S. humanitarian assistance, then U.S. 
assistance under the Foreign Assistance Act and the Arms Export Control 
Act would be restricted under this provision.
    With respect to your first question, I do agree that the direct or 
indirect prohibition or other restriction of the transport or delivery 
of U.S. humanitarian assistance is the relevant question under 
subsection (a) of the statute; and that the statute does not require 
that ``all'' humanitarian assistance has been restricted before the 
prohibition in subsection (a) can be triggered. Evidence that the 
transport or delivery of any amount of U.S. humanitarian assistance had 
been blocked by a foreign government would be highly relevant in 
determining whether a direct or indirect prohibition or other 
restriction has occurred under subsection (a) of the statute. If 
confirmed, I would wish to consider any such evidence, along with any 
other relevant facts, and prior interpretations of the Department, in 
providing advice on the application of the statute. With respect to 
your second question, I also agree that a variety of considerations 
could inform the national security interest exception under subsection 
(b) that would not be relevant to determining whether a direct or 
indirect prohibition or other restriction exists that would trigger 
subsection (a).
    As noted in my response to your prior questions, an assessment of 
whether the assistance restriction under section 620I has been 
triggered is a highly fact-specific inquiry. If confirmed, it would be 
essential for me to have a full understanding of the relevant facts, 
including with respect to any classified or unclassified information 
available to the Department on this issue which I have not had the 
opportunity to consider as a nominee, before reaching a final view on 
these statutory questions. I commit to you that, if confirmed, I will 
review these issues in depth, to engage closely with my colleagues at 
the Department and USAID on these issues, and to meet with you and your 
staff to share my assessments and consider your views further, 
consistent with my professional obligations to the Department.



                               __________

           Responses to Additional Questions for the Record 
      Submitted to Jennifer Newstead by Senator Christopher Murphy

    Question 1.  Congressional authorization of new military actions: 
If confirmed, you will be required to provide advice and 
recommendations to the President and Secretary of State regarding the 
legal basis for potential military action. Do you believe there are 
situations (other than an imminent threat against the United States) in 
which the President may use military force against a new adversary, 
including a sovereign foreign government, without Congressional 
authorization? In what circumstances do you believe the President is 
required to seek Congressional authorization to use military force?

    Answer. There is no legal question that is more consequential, or 
more serious, than the question of when and under what circumstances 
the President would be authorized to use military force. If confirmed, 
I would expect to consult with my colleagues in the Office of the Legal 
Adviser as well as with my counterparts in other departments and 
agencies, including the Department of Justice's Office of Legal 
Counsel, whenever the United States is faced with the need to consider 
the use of force.
    In general terms, I understand that the Office of Legal Counsel has 
opined that the President has authority pursuant to Article II of the 
Constitution as Commander in Chief and Chief Executive to take military 
action that in nature, scope, and duration does not amount to war and 
that furthers sufficiently important national interests. Whether a 
particular use of military force would fall within the President's 
Article II authority, however, would require a fact-specific assessment 
at the time the use of military force is contemplated. That said, I 
have great respect for the critical role played by Congress in 
authorizing the use of military force. While I recognize that there are 
times when the President may need to resort to force when necessary to 
confront an attack or the imminent threat of an attack, I believe that 
the interests of the nation are best served when the President and the 
Congress act together to provide a clear and unambiguous legal 
authorization to support the men and women of our military as they 
defend our national security interests.
    In addition to considering domestic legal issues, if confirmed I 
would also give careful consideration to whether any proposed use of 
military force would be consistent with applicable international law, 
including the body of international law that governs the resort to the 
use of force (the jus ad bellum) and the law governing the conduct of 
hostilities (the law of armed conflict or jus in bello).
    If confirmed, I would welcome the opportunity to work closely with 
interested Members of this committee and staff on these important legal 
issues, consistent with my professional responsibilities when providing 
legal advice to the Secretary of State.

    Question 2.  North Korea: The administration has not so subtly 
hinted that a major conflict with North Korea may be coming--
potentially a nuclear conflict. The administration has neither sought 
authorization from Congress, nor provided the American public with a 
legal basis for engaging in a potentially catastrophic nuclear conflict 
with North Korea. Based on the current facts, do you believe the 
President has the legal authority to initiate the use of military force 
against North Korea? In your opinion, would the President need 
congressional authorization to initiate armed conflict against North 
Korea?

    Answer. There is no legal question that is more consequential, or 
more serious, than the question of when and under what circumstances 
the President would be authorized to use military force. If confirmed, 
I would expect to consult with my colleagues in the Office of the Legal 
Adviser as well as with my counterparts in other U.S. Government 
departments and agencies, including the Department of Justice's Office 
of Legal Counsel, on both the domestic and international law issues 
raised by your question.
    In terms of domestic law, I generally understand that the Office of 
Legal Counsel has opined that the President's power to employ military 
force abroad in the absence of specific congressional approval derives 
from his constitutional responsibility as Commander in Chief and Chief 
Executive for foreign and military affairs. In particular, the 
President has authority pursuant to Article II of the Constitution to 
take military action that in nature, scope, and duration does not 
amount to war and that furthers sufficiently important national 
interests. A determination whether any particular use of military 
force, whether with respect to North Korea or otherwise, would fall 
within the President's Article II authority would require a fact-
specific assessment at the time the use of military force is 
contemplated. In the absence of an immediate military attack, this 
assessment would necessarily include whether the United States is under 
the threat of an imminent armed attack and what measures would be 
necessary and appropriate to address that threat. That said, I have 
great respect for the critical role played by Congress in authorizing 
the use of military force. While I recognize that there are times when 
the President may need to resort to force when necessary to confront an 
attack or the imminent threat of an attack, I believe that the 
interests of the nation are best served when the President and the 
Congress act together to provide a clear and unambiguous legal 
authorization to support the men and women of our military as they 
defend our national security interests.
    In addition to considering domestic legal issues, if confirmed I 
would also want to give careful consideration to whether any proposed 
use of military force would be consistent with applicable international 
law, including the body of international law that governs the resort to 
the use of force (the jus ad bellum) and the law governing the conduct 
of hostilities (the law of armed conflict or jus in bello).
    If confirmed, I would welcome the opportunity to work closely with 
interested Members of this committee and staff on these important legal 
issues, consistent with my professional responsibilities when providing 
legal advice to the Secretary of State.

    Question 3.  Legal justification for Syria strikes: On April 6, 
2017, the administration launched military strikes against the Syrian 
regime. Since then, it has provided no legal rationale to justify the 
use of force under domestic or international law. Do you believe the 
strikes against the Syrian regime were legally justified? What is your 
understanding of the legal basis for these strikes under domestic law? 
Do you believe these strikes were legal under international law?

    Answer. I understand that the President provided a report to 
Congress regarding this use of force in a letter dated April 8, 2017, 
consistent with the War Powers Resolution. In that letter, the 
President explained the strikes were taken to degrade the Syrian 
military's ability to conduct further chemical weapons attacks and to 
dissuade the Syrian regime from using or proliferating chemical 
weapons, thereby promoting the stability of the region and averting a 
worsening of the region's current humanitarian catastrophe. The letter 
also explained that the President acted in the vital national security 
and foreign policy interests of the United States, pursuant to his 
constitutional authority to conduct foreign relations and as Commander 
in Chief and Chief Executive.
    Although, I do not at this time have access to all the information 
necessary to make any additional assessment of the domestic and 
international legal basis for the actions beyond what has been 
identified by the administration to date, if confirmed, I would make it 
a priority to study this issue further and to consult with my new 
colleagues at the Department of State and my counterparts in other U.S. 
Government departments and agencies on this matter. If confirmed, I 
would welcome the opportunity to work closely with interested Members 
of this committee and staff on these important legal issues, consistent 
with my professional responsibilities when providing legal advice to 
the Secretary of State.

    Question 4.  Documents related to the Syria strikes: A public 
interest group, the Democracy Project, has filed a lawsuit against the 
administration to obtain the legal justification for the 
administration's strikes against the Syrian regime. As part of those 
proceedings, the federal District Court for the District of Columbia 
required the Government, (the Departments of Justice, State, and 
Defense), to expedite the plaintiff's Freedom of Information Act 
Requests, concluding: ``if production is unduly delayed, both 
[plaintiff] and the public at large will be `precluded ... from 
obtaining in a timely fashion information vital to the current and 
ongoing debate surrounding the legality of' a high-profile government 
action-namely, military strikes against the Syrian Government. Being 
closed off from such a debate is itself harm in an open democracy.'' Do 
you agree there is a legitimate public interest in disclosing the legal 
rationale for using military force? If confirmed, will you commit to 
providing this committee with a detailed and timely explanation of the 
legal justification for the use of military force--including the memo 
prepared by the Office of Legal Counsel for the purpose of advising the 
Attorney General regarding the legal bases for the April 6 strike 
against the Al Shayrat airfield in Syria?

    Answer. I do agree that the public has a legitimate interest in 
understanding the legal rationale for the use by the United States of 
military force, and that providing such explanations to the extent 
possible is an important aspect of supporting legitimate public 
discussion of the issue. I also recognize that sometimes aspects of 
that rationale may not be able to be publicly disclosed for national 
security or other legitimate reasons.
    With respect to the legal issues concerning the particular use of 
force in question, if confirmed I would make it a priority to study 
this issue further and to consult with my new colleagues at the 
Department of State and my counterparts in other U.S. Government 
departments and agencies on this matter. If confirmed, I would welcome 
the opportunity to work closely with interested Members of this 
committee and staff on these important legal issues, consistent with my 
professional responsibilities when providing legal advice to the 
Secretary of State, and mindful of the particular interests of the 
Department of Justice concerning the nature of legal advice provided by 
a component of that Department to the Attorney General.



                               __________


           Responses to Additional Questions for the Record 
          Submitted to Jennifer Newstead by Senator Tim Kaine

    Question 1.  On April 6th, President Trump ordered an airstrike on 
the Shayrat military airbase in Syria. Following the airstrike, 
Congressman Schiff and I sent a letter to the President asking for the 
administration's legal justification for the strike (attached). To 
date, I still have not received a response with the administration's 
legal justification. Can you please provide me with the legal 
justification under domestic and international law for the 59 Tomahawk 
missiles launched on April 6th against targets at the Shayrat airfield 
in Syria? If unable to answer at this time, will you commit to 
providing me either a written or in person response within 30 days of 
being confirmed?

    Answer. I understand that the President provided a report to 
Congress regarding this use of force in a letter dated April 8, 2017, 
consistent with the War Powers Resolution. In that letter, the 
President explained the strikes were taken to degrade the Syrian 
military's ability to conduct further chemical weapons attacks and to 
dissuade the Syrian regime from using or proliferating chemical 
weapons, thereby promoting the stability of the region and averting a 
worsening of the region's current humanitarian catastrophe. The letter 
also explained that the President acted in the vital national security 
and foreign policy interests of the United States, pursuant to his 
constitutional authority to conduct foreign relations and as Commander 
in Chief and Chief Executive.
    Although, I do not at this time have access to all the information 
necessary to make any additional assessment of the domestic and 
international legal basis for the actions beyond what has been 
identified by the administration to date, if confirmed, I would make it 
a priority to study this issue further and to consult with my new 
colleagues at the Department of State and my counterparts in other U.S. 
Government departments and agencies on this matter. If confirmed, I 
would welcome the opportunity to work closely with interested Members 
of this committee and staff on these important legal issues, consistent 
with my professional responsibilities when providing legal advice to 
the Secretary of State.

    Question 2.  Thank you for your reply referencing the President's 
April 8th War Powers notification to Congress. I similarly referenced 
the President's notification in my letter to the administration that 
was attached to my original question to you. This letter highlights my 
concern is that the April 8th War Powers notification does not provide 
Congress with the information it needs to exercise it constitutional 
responsibilities nor does it provide a detailed legal analysis or 
justification for the U.S. strike on Shayrat military airbase in Syria 
under domestic and international law.
    I understand that as a nominee you may not currently have access to 
all the information necessary to provide an assessment of the domestic 
and intentional legal basis for the action that the administration 
undertook, which is why I asked if you would provide me a detailed or 
written response within 30 days of being confirmed. In your previous 
response, you did not commit to doing so. For clarity, will you provide 
me a detailed or written response within 30 days of being confirmed 
with the legal analysis and justification for the U.S. strike on 
Shayrat military airbase in Syria under domestic and international law? 
A yes or no response is requested.

    Answer. Thank you for your follow-up question on this issue, and 
for your consideration in noting that as a nominee I do not currently 
have access to all the information necessary to provide a detailed 
response to your question. If I am confirmed, I would make it a 
priority to consult with my colleagues at the Department of State and 
my counterparts in other U.S. Government departments and agencies on 
this matter and I will commit to engaging with you in detail within 30 
days. Additionally, as I mentioned during my hearing and in my response 
to your earlier QFR, I would also welcome the opportunity to engage 
with interested Members of this committee and staff as closely as I 
could to discuss such legal issues, mindful of my professional 
responsibilities when I provide legal advice to the Secretary of State.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Jennifer Newstead by Senator Edward J. Markey

    Question 1.  I believe the President's decision not to certify 
Iran's compliance with the Joint Comprehensive Plan of Action (JCPOA), 
without providing any factual or material evidence to warrant a non-
certification is extremely reckless. The signal that this move sends to 
countries like North Korea or other bad actors is the same signal that 
withdrawing from the Paris Climate Agreement sent. Withdrawing from 
these agreements because the President doesn't like them undermines our 
diplomatic efforts across the globe and sends a message that the United 
States does not uphold its end of the bargain. Undermining these 
agreements could do untold damage to the National Security of the 
United States. Is Iran in technical compliance with the negotiated 
terms of the Joint Comprehensive Plan of Action (JCPOA)? If not, please 
identify specifically which provisions of the agreement it is 
violating.

    Answer. With regard to your question about Iran's technical 
compliance with the terms of the JCPOA, I understand that the Secretary 
recently noted that ``IAEA reports continue to indicate and confirm 
that Iran is in technical compliance of the agreement.'' I am also 
aware that the administration has expressed its continued concern that 
Iran has tried to push the limits in the JCPOA and, in the past, has 
exceeded some limits, such as those related to heavy water. I also 
understand that the administration has recently concluded, pursuant to 
the requirements of the Iran Nuclear Agreement Review Act of 2015 
(INARA), that the sanctions relief Iran received as part of the JCPOA 
is not ``proportionate'' to the specific, limited-duration measures 
Iran took with respect to terminating its illicit nuclear program, and 
therefore was unable to provide a required certification to Congress 
under INARA on that basis.
    If confirmed, I intend to examine this issue closely with my 
colleagues in the Office of the Legal Adviser and across other U.S. 
Government departments and agencies, so that I can provide the 
Secretary with the best possible legal advice on these matters.

    Question 2.  Can you explain the legal rationale for the 
President's recent decision not to certify Iran as complying with the 
terms of the Iran nuclear agreement?

    Answer. It is my understanding that the Iran Nuclear Agreement 
Review Act of 2015 (INARA) requires the President to determine every 90 
days whether he is able to certify to Congress that certain statutory 
criteria related to the Joint Comprehensive Plan of Action (JCPOA) have 
been met. One of those criteria is that suspension of sanctions with 
respect to Iran under the agreement is ``appropriate and proportionate 
to the specific and verifiable measures'' that Iran has taken with 
respect to terminating its illicit nuclear program. I understand that 
the administration recently determined that it was unable to certify 
compliance with this criteria, because it concluded that the suspension 
of sanctions pursuant to the JCPOA is not ``proportionate'' to the 
specific, limited-duration measures that Iran has taken to date with 
respect to terminating its illicit nuclear program. If confirmed, I 
intend to examine this issue closely with my colleagues in the Office 
of the Legal Adviser and across other U.S. Government departments and 
agencies, so that I can provide the Secretary with the best possible 
legal advice on these matters.

    Question 3.  In your opinion, does the JCPOA provide effective 
obligations and verification procedures on Iran and safeguards against 
possible breaches of such obligations? If not, what changes to the 
JCPOA would provide such assurances?

    Answer. I understand that the Secretary of State has made clear 
that he believes the JCPOA has flaws, and that the administration 
intends to work closely with Congress to address those concerns, as 
well as on a broader approach to address malign actions by Iran outside 
the scope of the JCPOA The Secretary has also said that while the U.S. 
Government works to fix the JCPOA, it intends to hold Iran strictly 
accountable to its existing commitments. I am aware that Department has 
said that, in that regard, it is essential for the IAEA to continue to 
monitor and verify Iran's activities to the full extent of its 
authorities. If confirmed, I would provide my best legal advice to the 
Secretary and the technical experts in the State Department as they 
work on ways to address those flaws, including by working with Congress 
on new legislation.

    Question 4.  What effect could presidential decertification under 
U.S. law have on U.S. compliance with obligations owed to Iran and the 
other five parties to the JCPOA, especially if no party other than the 
United States has found Iranian violations?

    Answer. I understand that the administration's recent determination 
that a certification to Congress required under the Iran Nuclear 
Agreement Review Act of 2015 (INARA) cannot be made does not mean that 
the United States is ending its participation in the JCPOA. It is my 
understanding that the President and Secretary of State have made clear 
that the United States is continuing to adhere to its commitments under 
the JCPOA, and will work with Congress to hold Iran strictly 
accountable to its commitments. I also understand that the 
administration is not encouraging Congress to pass legislation to 
reinstate statutory sanctions at this time, which would make it 
impossible for the United States to continue implementing the full 
range of its sanctions relief commitments under the deal. If confirmed, 
I would provide my best legal advice to the Secretary and the technical 
experts in the State Department on these issues.

    Question 5.  Please explain what role your office plays in ensuring 
that the United States continues to meet its obligations under 
international agreements even after U.S. foreign policy and national 
interests are no longer aligned with such agreements.

    Answer. The role of the Legal Adviser is to provide rigorous and 
objective legal advice to the Secretary of State, other Department 
officials, and policymakers across the Federal Government as they 
formulate and implement the foreign policy of the United States. 
Providing advice on the obligations of the United States under 
international agreements is a critical part of that mission. As I noted 
during my hearing, the Office of the Legal Adviser also plays a unique 
role supporting the Department's mission to promote our values, the 
rule of law, and respect for human rights and democracy around the 
world. Consistent with this role, the Legal Adviser is specifically 
responsible for advising on the interpretation and application of 
treaties and other international agreements to which the United States 
is a party, including the legal obligations of the United States under 
such agreements, and assisting Department officials in identifying 
means of advancing U.S. interests in a manner consistent with U.S. 
domestic and international legal obligations. If confirmed, I will 
continue the work of the Legal Adviser's Office to promote respect for 
international law and the rule of law more generally, and to ensure 
that our pursuit of U.S. foreign policy and national security 
objectives are informed by a complete understanding of the obligations 
of the United States under international agreements.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Manisha Singh by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. During my tenure at the Foreign Relations Committee, one of 
the most important pieces of legislation I managed was the 2004 renewal 
of the African Growth and Opportunity Act (AGOA), which passed and was 
signed into law. AGOA provides unilateral trade preferences for 
eligible sub-Saharan African countries, with eligibility standards 
focused on democracy, human rights and the rule of law in addition to 
market-based economies. This legislation continues to provide a 
successful means of encouraging AGOA countries to take ownership of 
their governance, democracy and human rights. Reports evaluating AGOA 
have shown improvements in human rights and governance, and eligibility 
provides a strong incentive for AGOA countries to maintain and improve 
their records. I feel that country ownership is one of the most 
effective means of sustainable democracy and human rights.
    My prior State Department service includes serving as the Deputy 
Assistant Secretary in the Bureau of International Organization Affairs 
overseeing the IO human rights portfolio. In this position, I attended 
meetings of U.N. human rights bodies as the U.S. representative. I 
worked on matters such as USG supported resolutions that condemned rape 
as a weapon of war and demanded the release of political prisoners. My 
contribution was one of maintaining and amplifying the United States as 
a country that promotes and values human rights.

    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. If confirmed, I will foster a culture of leadership that 
supports professional development of staff, encourages participation in 
leadership development programs, and ensures that there are 
opportunities to apply for career-enhancing positions in the Bureau of 
Economic and Business Affairs. I will encourage employees to 
participate in the Department's Employee Affinity Groups, such as The 
Council for Career Enhancement and Professionalization, Executive Women 
at State, Blacks in Government (Carl T. Rowan Chapter), Hispanic 
Employees Council of Foreign Affairs Agencies, and the South Asian-
American Employee Association. Employee Affinity Groups promote 
internal networking and career development. They are also helpful in 
recruitment, retention, skill development, and training.

    Question 3.  What steps will you take to ensure each of the 
supervisors at the Bureau of Economic and Business Affairs are 
fostering an environment that is diverse and inclusive?

    Answer. If confirmed, I will make sure that EB's supervisors 
appreciate the importance of ensuring a diverse slate of candidates 
when filling vacancies. I will highlight the importance of supervisors 
providing mentoring and career development counseling that helps 
employees develop the skills necessary for advancement. Identifying 
those with the potential to assume senior leadership positions five to 
10 years before they are ready to assume these positions is also 
important so that supervisors can help them begin preparing for these 
roles. There is a wealth of diverse talent within the Bureau of 
Economic and Business Affairs and if I am confirmed I will ensure a 
deliberate process to cultivate this talent.

    Question 4.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in any country abroad.

    Question 7.  The State Department has an important voice in 
formulating U.S. international economic policy, but is the lead agency 
in only a few policy areas. Many officials have advocated greater 
inclusion of international economic issues into decisions on U.S. 
foreign policy. What is your view on this approach? Will the State 
Department continue to prioritize the ``economic statecraft'' agenda of 
the previous administration, which aimed to elevate economic diplomacy 
as a central component of U.S. foreign policy?

    Answer. Secretary Tillerson has talked about how important the 
Department's promotion of economic prosperity is for the American 
people, and for our national security. If confirmed as Assistant 
Secretary of the Bureau for Economic and Business Affairs (EB), I will 
work to open markets for U.S. businesses around the world and carry out 
the mission statement of the Bureau: ``Economic Diplomacy for 
America.''
    EB strengthens U.S. national security by promoting fair and open 
foreign markets, advocating for U.S. businesses, and developing 
policies that support prosperity, stability, and security. EB promotes 
U.S. businesses, exports, and jobs worldwide and provides economic 
forecasting and analysis that benefits U.S. policymakers. EB is also 
responsible for developing and implementing foreign policy-related 
sanctions adopted to counter threats to national security posed by 
particular activities and countries. Embassies and economic officers 
worldwide ensure economics plays its proper role in foreign policy. If 
confirmed, I am committed to ensuring that economic policy plays an 
important role the mission of the Department.

    Question 8.  What is the role of the State Department in 
formulating and negotiating U.S. positions at the G-8 and G-20 fora?

    Answer. The Department of State is a key participant in policy 
formulation for both the G-7 and G-20 and works closely with the NSC 
and Treasury in summit preparation and negotiation strategy 
formulation. The Department's Under Secretary for Economic Growth, 
Energy, and the Environment (E) has traditionally been the U.S. 
negotiator in Foreign Affairs Sous-Sherpa meetings for the G-7 with EB 
coordinating State's input into interagency discussions.
    EB advocates for U.S. businesses and American workers by developing 
policies that support prosperity, stability, and security. These same 
economic priorities are the foundation for our multilateral 
negotiations at the G-7 and G-20.

    Question 9.  Some functions of the Bureau with regard to trade 
promotion and business advocacy seem to overlap with those of the 
Department of Commerce and the U.S. Commercial Service. How would you 
distinguish the difference between activities of the Bureau and other 
agencies involved in export promotion and support of U.S. interests 
abroad?

    Answer. Along with colleagues across the State Department, EB 
coordinates and leads the U.S. Government's representation in foreign 
capitals and at a multitude of international fora to ensure a level 
playing field for U.S. economic interests. EB ensures that the U.S. 
business community's perspective is included and reflected in the 
broader foreign policy decision-making process. U.S. business and 
industry groups seek EB's and the Department's help with market 
intelligence to better understand commercial opportunities abroad. In 
addition, U.S. companies value EB's advocacy not only to promote 
exports of goods and services, but also to safeguard trillions of 
dollars of investments in global value chains.
    The Foreign Commercial Service has offices in approximately 75 
countries, while the State Department, primarily through EB, manages 
the commercial activities in the remaining diplomatic missions. 
Together, State and Commerce complement and amplify U.S. Government 
export promotion efforts overseas.

    Question 10.  Several major countries, including China, India, 
Indonesia, and Russia were designated on a ``Priority Watch List'' by 
USTR in its latest Special 301 report, which flags serious problems in 
IP protection and enforcement. On August 18, 2017, USTR also announced 
a Section 301 investigation into China's protection of U.S. 
intellectual property rights and forced technology transfer policies. 
How does the Bureau work to improve the enforcement of IPR in emerging 
markets like China?

    Answer. EB advances U.S. economic interests by promoting 
intellectual property rights (IPR) around the world in support of 45 
million U.S. jobs, more than 50 percent of U.S. exports, and almost 40 
percent of U.S. GDP. EB works with U.S. private-sector stakeholders, 
U.S, Ambassadors, and the interagency to identify IPR challenges, 
formulate strategies that advance U.S. interests, and engage 
internationally. The bureau also manages the State Department's 
contributions to the Special 301 Report to Congress, an annual review 
of global IP protection and enforcement. EB works with U.S. missions in 
developing and emerging markets to improve weaknesses in IP enforcement 
regimes by developing action plans, supporting public awareness 
campaigns, and raising IP concerns with host governments and civil 
society, including in China, India, and other large markets. The bureau 
is also an active participant in the ongoing Section 301 China 
investigation to ensure the Department's contributions are incorporated 
in deliberations and in the final report.

    Question 11.  In early 2017, the United States withdrew from the 
Trans-Pacific Partnership (TPP), the comprehensive mega-regional trade 
deal between the United States, Japan, and ten other countries in the 
Asia-Pacific region. Meanwhile, several TPP members and other countries 
in the region, including China, are pursuing their own bilateral deals 
and the Regional Comprehensive Economic Partnership (RCEP), an 
agreement that is not expected to be as high standard as the TPP. In 
the absence of the TPP, what should be the strategy to advance U.S. 
strategic and economic interests in the region?

    Answer. By withdrawing from the Trans-Pacific Partnership (TPP), 
the President sent a clear signal that the United States would take a 
new approach to trade issues, and paved the way for potential bilateral 
talks with the remaining TPP countries.
    The United States remains actively and vitally engaged in the Asia-
Pacific region. President Trump will be travelling to the region in 
November, including to the APEC Leaders Meetings, to advance a range of 
economic and national security priorities with our partners.

    Question 12.  The administration plans to prioritize bilateral 
trade negotiations over regional or multilateral deals. What does a 
shift in U.S. trade policy from mega-regional agreements such as the 
TPP and T-TIP mean for the U.S. ability to shape global rules? What do 
you believe should be the balance between U.S. regional and 
multilateral trade efforts?

    Answer. The administration's goal is to negotiate trade agreements 
that benefit all Americans. Vigorous enforcement of existing trade 
agreements--both bilateral FTAs and multilateral agreements under the 
WTO--is also critical to maintaining support for free and fair trade. 
If confirmed, I look forward to working closely with the Office of the 
U.S. Trade Representative and other agencies to advance U.S. economic 
interests. I will seek to pursue any opportunity that maximizes 
benefits for U.S. companies and the American people.

    Question 13.  What are the Bureau's responsibilities with regard to 
combating terrorism finance? What successes have been achieved in 
building international cooperation in this regard?

    Answer. EB works closely with the Department of Treasury to oversee 
a broad range of anti-money laundering and counter terrorism finance 
activities designed to degrade the funding of terrorist groups around 
the globe including ISIS. EB co-leads with Treasury a multilateral 
Global Coalition to Defeat ISIS Counter-ISIS Finance Working Group that 
brings together 39 countries to identify and counter ISIS' efforts to 
generate revenue and cut it off from the financial system. EB also 
coordinates State Department review of and provides foreign policy 
guidance for proposed Treasury designations of individuals and entities 
providing support to terrorists or acts of terrorism under Executive 
Order (E.O.) 13224.
    EB also leads, and funds, the Department's engagement with foreign 
governments on Anti-Money Laundering/Counter Terrorist Financing (AML/
CFT) issues through the Financial Action Task Force (FATF) and FATF-
style regional bodies which promote implementation of international 
standards and best practices on countering terror financing. The 
efforts to counter terrorist finances have helped degrade ISIS's 
capacities.

    Question 14.  The United States is signatory to the OECD Anti-
Bribery Convention and the United Nations Convention Against 
Corruption, which focus on preventing and criminalizing corruption and 
providing cooperation among signatory countries to recover stolen 
assets. What does the United States do to help countries implement such 
conventions? Have these efforts been successful?

    Answer. The Anti-Bribery Convention has helped build a coalition 
against foreign bribery, allowing U.S. businesses to better compete in 
international markets. The United States promotes the commitments of 
the Convention through the OECD's Working Group on Bribery (WGB), where 
we have shared best practices such as the U.S. Foreign Corrupt 
Practices Act, the prohibition of the tax deductibility of bribes, and 
corporate liability to combat corrupt practices. U.S. implementation of 
the Foreign Corrupt Practices Act forms the basis of the Convention. 
Due to active U.S. engagement and leadership, the WGB has become an 
effective tool for pressuring other major economies to strengthen and 
enforce their foreign bribery laws. The WGB is especially successful in 
the anti-corruption area. International organizations call its tough 
peer review and relentless follow-up requirements the ``gold standard'' 
of anti-corruption monitoring.
    The State Department leads the interagency in using the United 
Nations Convention Against Corruption (UNCAC) as leverage to encourage 
countries to fulfill their international anticorruption commitments. 
This is done in multilateral forums and bilaterally, using foreign 
assistance funds in some cases. The funding supports capacity building 
for anticorruption enforcement and development and implementation of 
anticorruption policies. Bilateral programs reinforce the Convention 
through programs and assistance focused on both preventative efforts 
and enforcement. On asset recovery, EB promotes the UNCAC as the global 
legal framework. In this context, EB supports capacity building and 
case coordination efforts through regional and bilateral programs.



                               __________


           Responses to Additional Questions for the Record 
     Submitted to Michael T. Evanoff by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The Diplomatic Security Service (DSS) is the law 
enforcement arm of the Department of State, and as such is charged with 
investigating illegal passports or visas. Visa and passport fraud is 
often intertwined with other illegal activities, such as human 
smuggling, sex trafficking, terrorism, and money laundering.
    In the early 1990s, while serving as a new Assistant Regional 
Security Officer (ARSO) in the Philippines, I was part of a successful 
DSS/Immigration and Naturalization Service (INS) joint operation that 
broke a human sex trafficking ring which was using illegal visas. At 
the time, underage Philippine women were being lured to California and 
then further into the United States, where they were forced into 
becoming sex workers. Utilizing our overseas expertise in the 
Philippines, as well as our Philippine police contacts, we helped 
arrest the Philippine and American ring leaders. The operation ended a 
multimillion-dollar operation and freed the women who had been trapped.
    If confirmed, I will be strongly committed to maintaining and 
enhancing DSS's partnership with police agencies around the world to 
thwart and apprehend criminals and cartels that abuse human rights via 
transnational crimes.
    In terms of promoting democracy, as Director of Security for NATO, 
from 2007 to 2011, I played a lead role in uncovering a previously 
undetected Russian Foreign Intelligence Service (SVR) operation. I 
recommended the expulsion of two Russian NATO Mission Intelligence 
Officers. President Obama approved my recommendation, which led to the 
first and only expulsion of Russians from a NATO Partnership for Peace 
mission.

    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors in the 
        Bureau of Diplomatic Security are fostering an environment 
        that's diverse and inclusive?

    Answer. Diversity among the senior ranks of Diplomatic Security 
(DS) has ebbed and flowed over time, and will be one of the factors 
considered when making assignments to leadership positions. Though 
perhaps not in the numbers we would hope, the leadership of DS has been 
made up of a diverse group of men and women from within our ranks that 
consistently perform admirably and often move on to prestigious 
positions within the Government or in private industry. Over time, the 
hiring practices of DS and the Department as a whole have grown to 
actively seek out a more diverse workforce. With an eye to the future, 
a Recruitment Unit, comprised of active duty DS Foreign Service 
members, has been established to spearhead outreach and recruitment to 
diversity groups. My goal is to recruit a more diverse Foreign Service 
cadre, and if confirmed, I will work to ensure that this goal is 
reflected in our future senior leadership.
    If confirmed, in keeping with Secretary Tillerson's strong emphasis 
on diversity, I will ensure all DS supervisors at all of our missions 
have access to and avail themselves of opportunities to receive regular 
formal training and regular guidance on EEO principles, diversity, and 
inclusion to sensitize them to these important issues and maximize 
diverse talents in our workforce.

    Question 3.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 4.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. If confirmed, I commit to comply with all relevant federal 
ethics laws, regulations, and rules, and to raise concerns that I may 
have through appropriate channels.

    Question 5.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No, we do not.

    Question 6.  Will the DS A/S have independent access to the 
Secretary of State at any time to discuss security-issues that he deems 
require the Secretary's immediate attention?

    Answer. According to Section 103 of the Department of State 
Authorities Act, Fiscal Year 2017--``The Assistant Secretary for 
Diplomatic Security shall report directly to the Secretary, without 
being required to obtain the approval or concurrence of any other 
official of the Department, as threats and circumstances require.''
    If confirmed, I am confident that I will have independent access to 
the Secretary of State when required.

    Question 7.  What steps has Diplomatic Security taken to ensure 
that its positions are filled with persons at the appropriate level of 
experience?

    Answer. The Department of State assigns a grade level to each 
overseas position. As the Bureau of Diplomatic Security (DS) 
contemplates assigning agents to Regional Security Officer (RSO) and 
other positions, it ensures to the maximum extent possible that 
individuals at certain grade levels are assigned to positions with 
corresponding grades. Prior to the assignment of any DS employee to a 
new position, a panel of senior officers reviews his or her 
qualifications to ensure that the employee is the best possible match 
for the position.

    Question 8.  What is State doing to further close the gaps in 
Diplomatic Security's Language Designated Positions?

    Answer. As a 26-year veteran of the Department of State, I have 
seen firsthand the value of having certain foreign language skills 
while assigned overseas. While I have been absent from the Department 
since 2011, it is my understanding that the Department has recently 
created curricula in various target languages--such as Arabic, for 
example--designed specifically for Diplomatic Security (DS) personnel 
assigned to High Threat, High Risk posts overseas.

    Question 9.  Please discuss any impacts you believe that the Bureau 
of Overseas Building Operations' transition from the Standard Embassy 
Design to Design Excellence has had on the security of U.S. embassies. 
In your view, has the construction of embassies using the Design 
Excellence approach unnecessarily delayed the move of staff from 
facilities that do not meet current security standards to new, secure 
facilities? Please explain your reasoning.

    Answer. Whether the Department utilizes Standard Embassy Design or 
Excellence in Diplomatic Facilities, every diplomatic facility 
constructed meets the Department's security requirements and those 
codified in law.
    Embassies differ in the size and operational requirements, as well 
as their security needs. Each new embassy should be designed to meet 
these operational requirements. If confirmed I will work closely with 
Overseas Building Operations and ensure that the Department implements 
a strategy that delivers safe, secure functional facilities as quickly 
and cost effectively as possible.

    Question 10.  What steps has State taken to mitigate the risks to 
costs and schedules associated with the Excellence approach to building 
new embassies?

    Answer. I am not yet aware of the specific management steps the 
Department may be undertaking concerning cost and schedule of new 
embassy projects. I do believe that, embassies differ in the size and 
operational requirements, as well as their security needs. Each new 
embassy should be designed to meet these operational requirements. 
Should I be confirmed as the next Assistant Secretary of Diplomatic 
Security, I will work with Overseas Building Operations to execute 
projects in the most cost effective, expedient, and risk adverse 
manner.

    Question 11. To what extent do State's facilities have or require 
waivers and exceptions to security standards? What steps has State 
taken to address weaknesses in its waivers and exceptions program?

    Answer. According to the Department's Foreign Affairs Manual, the 
Secretary of State may waive statutory collocation and setback 
requirements should it be determined that it is in the national 
interest of the United States.
    Also, I understand that new facilities must meet all Overseas 
Security Policy Board security standards whether constructed or 
acquired by purchase or lease. Every attempt must be made to acquire 
sites or new facilities that meet, or can be upgraded to meet, physical 
security standard. If compliance with one or more standards is not 
possible for a specific building, an exception to this standard may be 
applied.
    The Bureau of Diplomatic Security (DS) is tasked with ensuring the 
security of American diplomatic missions and personnel. Should I be 
confirmed as the next Assistant Secretary of Diplomatic Security, I 
will work tirelessly every day to ensure all those serving overseas 
under Chief of Mission authority live and work in facilities that are 
built to the highest standards. In situations where a waiver or 
exception is needed, I'll ensure DS puts in place the necessary 
mitigation measures to ensure the Department's personal are safe.

    Question 12. How extensively does State rely on temporary 
facilities that have been in place for extended periods of time? What 
progress has State made in creating additional guidance relating to 
temporary facilities?AnswerThe Department of State has one set of 
standards in place for its facilities in to ensure proper physical 
security protection for its personnel. Personnel cannot or should not 
occupy facilities until they are completed and there is a certification 
that the standards have been met or that an appropriate waiver or 
exception is in place. Where waivers or exceptions are issued, 
appropriate mitigation strategies also need to be in place.

    Question 13.  To what extent has State improved its compliance with 
security standards at overseas residences? Have the standards 
implemented in July 2014 affected the number of waivers and exceptions 
requested?

    Answer. The Bureau of Diplomatic Security (DS) continually reviews 
and re-evaluates the physical security posture of our missions. There 
have been multiple changes to security requirements in response to 
incidents and DS identifying the changing tactics of our adversaries 
and newly identified vulnerabilities. Changes to DS's policies are 
initiated by the bureau in collaboration with OBO and vetted through 
the Overseas Security Policy Board, and are then reflected in the 12 
FAH-5 and 12 FAH-6. If confirmed, I will work to ensure our security 
standards are continually updated in order to mitigate against evolving 
threats faced by our residents overseas.
    Given my absence from the Department since 2011, I cannot currently 
comment on the July 2014 standards. However, if confirmed, I look 
forward to engaging further with the committee on this issue.

    Question 14.  In your view, do recent incidents affecting U.S. 
diplomatic personnel at their residences in Cuba demonstrate increased 
risk that would-be attackers may target personnel at locations they 
perceive as less secure, including residences? If confirmed, what 
further steps, if any, would you recommend DS take to ensure diplomatic 
residences and other potential ``soft targets'' are secure? Would such 
steps include implementing GAO recommendations to DS to improve risk 
management processes in this area?

    Answer. I understand the Department has reduced its diplomatic 
presence in Cuba to ensure the safety of its personnel in response to 
these health attacks. I also understand, based on public information, 
that the Department is currently unable to identify the source of the 
attacks, and believes that U.S. citizens may also be at risk if they 
travel to Cuba.
    In general, the danger from terrorists and criminals operating 
outside of our facilities is best countered by well-informed 
individuals who conscientiously follow established personal security 
practices. I understand the Department makes every effort to facilitate 
employees' knowledge, including contractors, of best security practices 
through training, constant communication, and various off-compound 
security measures. If confirmed, I intend to thoroughly examine all 
current security practices pertaining to diplomatic residences and 
other potential ``soft targets,'' and evaluate what additional security 
measures may be required.

    Question 15.  What steps has State taken to ensure that posts 
conduct residential physical security surveys and request security 
exceptions, when needed, in a timely manner?

    Answer. According to the Foreign Affairs Manuel (FAM), the Bureau 
of Diplomatic Security (DS) is responsible for providing a secure 
environment for the residences of U.S. citizen direct-hire employees 
and their eligible family members sent abroad to conduct official 
business for the U.S. Government at Foreign Service posts. The regional 
security officer (RSO) or post security officer under the direction of 
the chief of mission, deputy chief of mission, or principal officer, 
has primary responsibility for inspection and validation of the 
suitability of housing from a security point of view.
    Before a specific house or apartment is leased, a security survey 
must be conducted. The survey is used to determine whether the dwelling 
meets, or can be modified to meet Department security standards. The 
security survey should be a major factor in the decision lease or 
reject a proposed property. Surveys are required to be updated every 
five years if property is retained in the housing inventory.
    The residential physical security survey is an important tool for 
the RSO that must be used in order to ensure Department personnel are 
housed in safe and secure facilities. Should I be confirmed as the next 
Assistant Secretary of Diplomatic Security, I will work to ensure DS's 
RSOs complete these surveys on time.

    Question 16.  To what extent has State adapted its Soft Targets 
Security Upgrade Program in light of recent public terrorist attacks?

    Answer. The Department's Soft Target security upgrade program began 
in 2003 to provide funding to qualified overseas schools and eligible 
chartered employee association facilities for physical security 
upgrades to mitigate terrorism and violent crime. The Overseas Building 
Operations (OBO), in coordination with the Bureau of Diplomatic 
Security (DS), evaluates and approves requested upgrades for funding. 
Typical upgrades include closed circuit TV systems, public address 
systems, perimeter wall upgrades, DS-approved shatter-resistant window 
film, and security lighting. I understand that the program does not 
fund upgrades to non-real property items, such as school buses, nor 
does it provide funding for staff or guards.
    The Department also works to proactively share information through 
its personnel at post, the Overseas Security Advisory Council (OSAC) 
and Consular Affairs' Directorate of Overseas Citizen's Services. 
Specifically, the Department disseminates classified threat reporting 
and assessments to diplomatic posts that allow RSOs and Emergency 
Action Committee members to make informed decisions about threat 
mitigation, to include providing information to private American 
interests. OSAC's Global Support Unit obtains and provides unclassified 
warnings to private U.S. citizen and business interests, corporations, 
NGOs, and faith based groups when they are identified as targets in 
classified threat reporting. Finally, the Department's American Citizen 
Services Division drafts and disseminates unclassified language for 
travel warnings, alerts, and emergency messages for use by private U.S. 
citizens traveling and residing abroad. Language in these products 
regularly highlights concerns regarding terrorist plots against soft 
targets.
    Should I be confirmed as the next Assistant Secretary of Diplomatic 
Security, I look forward to working with OBO to leverage the Soft 
Target Security Upgrade program to counter potential soft target 
attacks in the future.

    Question 17.  What efforts is State taking to ensure that U.S. 
personnel are in compliance with all applicable security training 
requirements, including mandatory HTSOS and FACT training?

    Answer. It is paramount that Department personnel receive the 
necessary security training prior to arriving at post. The Foreign 
Affairs Counter Threat course prepares U.S. Government personnel 
working at U.S. embassies and consulates for situations they may face 
globally and in potentially volatile regions. I understand the 
Department will make this course mandatory for all chief of mission 
personal serving overseas by January 2019. I am fully supportive of 
this requirement and, if confirmed, I will work to ensure that every 
official American receives this training prior to arriving at post.

    Question 18.  Does State have the capacity to train the number of 
U.S. personnel required to take Diplomatic Security-provided FACT 
training?

    Answer. Yes, I believe that the Department currently has the 
capacity to train the personnel required to take this training. I look 
forward to the completion of construction of the Foreign Affairs 
Security Training Center at Fort Pickett, Virginia, which should 
address the rapidly growing student population and future projected 
training needs.

    Question 19.  What steps is State taking to reinforce information 
covered in new arrival briefings with U.S. personnel and their 
families?

    Answer. The Regional Security Officer sends out regular security 
notices that remind post members of security programs and procedures 
and ensures that employees are informed of changes in a post's security 
environment in a timely manner. Posts also conduct regular drills to 
reinforce emergency planning information provided during new arrival 
briefings.

    Question 20.  How much progress has State made ensuring that (1) 
overseas posts annually update their EAPs and (2) Diplomatic Security 
comprehensively reviews key EAP sections?

    Answer. If confirmed, I will ensure that Emergency Action Plans 
(EAPs) continue to be created and tracked in the Crisis and Emergency 
Planning Application. I will ensure Diplomatic Security's Emergency 
Planning branch consistently monitors which posts are overdue on their 
EAPs and actively works with the posts and the Department's regional 
bureaus to ensure comprehensive annual updates to EAPs are finalized in 
a timely manner.

    Question 21.  What efforts is Diplomatic Security making to ensure 
that posts complete and report completion of required crisis and 
evacuation drills within required time frames?

    Answer. Regional Security Officers (RSOs) overseas must record the 
completion of their drills in a SharePoint site that can be reviewed by 
their DS desk officers in Washington. The desk officers review drill 
compliance on a regular basis and work with the RSOs at post to ensure 
their posts are compliant with their drill requirements and appropriate 
emergency action officers lead drills and they receive full post 
participation.

    Question 22.  What steps is State taking to ensure that overseas 
posts complete required lessons learned reports following evacuations 
and submit those reports to State headquarters for analysis?

    Answer. It is my understanding that in 2013, the Bureau of 
Diplomatic Security (DS) created the Operations Planning Unit. The Unit 
is responsible for creating comprehensive, innovative solutions to 
complex Bureau-level operational planning requirements. An element of 
this unit is the Operations Research and Analysis office, which 
provides global operations research and analysis support to DS while 
advising the bureau on the conduct and development of After Action 
Reviews--a version of a lessons learned document. If confirmed, I 
commit to ensuring that DS develops and promulgates immediate lessons 
learned from attacks overseas and trend analysis in support of major 
events planning, Department of Defense (DoD) engagements, and 
Government Accountability Office (GAO) reports.

    Question 23.  To what extent is DOD postured with adequate forces 
and equipment to ensure support to U.S. missions in crisis situations?

    Answer. The partnership between the Department of State and the 
Department of Defense (DOD) to ensure mission security has always been 
strong. It is my understanding that the relationship has grown 
significantly stronger in recent years. If confirmed, I will actively 
work with my DOD colleagues to ensure that mission security continues 
to stay a top priority.

    Question 24.  What is the progress of increasing MSG detachments at 
identified diplomatic facilities? What challenges exist to providing 
the personnel or support needed for these additional units?

    Answer. Since 1948, Marine Security Guards (MSGs) have been a vital 
part of the protection of personnel, equipment, and classified 
information overseas. It is my understanding that the Department and 
the Marine Corps have made significant progress in increasing the size 
and number of MSG detachments. In my experience, the usual limiting 
factor to increasing a detachment's size is leasing or building housing 
that meets the detachment's space requirements and the Department's 
security standards for a Marine residence.

    Question 25.  What steps have been taken to ensure that recent 
State and DOD policy and procedure updates are institutionalized and 
readily available in future emergencies?

    Answer. Having been absent from the Department since 2011, I am not 
currently in a position to effectively characterize various steps taken 
to ensure the most recent Department of State and DOD policy and 
procedure updates are institutionalized and readily available in future 
emergencies. If confirmed, however, I will ensure that all policy and 
procedures agreed upon by the Department and DOD are understood and 
briefed regularly to all DS personnel.

    Question 26.  Given State's numerous facilities worldwide and 
extensive use of contractors, what unique information security 
challenges, if any, does it face? How does it manage its global 
cybersecurity program?

    Answer. The Department strives to maintain acceptably high employee 
to contractor ratios, at all of its facilities worldwide. In terms of 
managing the global cybersecurity program, every overseas mission and 
domestic bureau has a trained Information Systems Security Officer on 
duty, as well as Foreign Service Regional Cybersecurity Officers 
assigned overseas for additional subject matter expertise. All embassy 
systems are connected back to the United States, where cybersecurity 
analysts monitor the department's networks 24/7 for adversarial 
activity.

    Question 27.  Given the rapidly changing nature of technology, how 
does State assess and address threats to its systems and users from 
changing cyber threats?

    Answer. The Department has a broad array of tools at its disposal 
to effectively assess and address constantly evolving cyber threats. It 
is my understanding that within DS, a new Directorate for Cyber and 
Technology Security (CTS) has been created and its structure builds 
upon the proven DS global ``defense-in-depth'' cybersecurity program by 
unifying the Department's cyber threat intelligence, incident response, 
and cyber forensics teams to ensure that all matters related to illegal 
and/or malicious cyber activity are reviewed in a fully coordinated 
manner. This system expedites reporting to law enforcement and 
intelligence consumers, delivers expert technical support for 
counterintelligence and data loss investigations, and ensures swift 
response on all cybersecurity events.
    If confirmed, I will ensure that DS continues to maintain and 
enhance its core cyber and technology programs.

    Question 28.  How will the new Directorate for Cyber and Technology 
Security improve State's capability to address cybersecurity issues?

    Answer. Having been absent from the Department since 2011, I am not 
currently in a position to effectively characterize this new 
Directorate. However, if confirmed, I commit to keeping with the recent 
Office of Management and Budget management reform directives and 
ensuring that the Directorate for Cyber and Technology Security enables 
the Bureau of Diplomatic Security (DS) to more fully leverage its 
advanced technology and operational security expertise and ensure that 
DS is poised to address cutting-edge security challenges such as 
insider threats while continuing to maintain a state-of-the-art 
cybersecurity program to detect, react, and respond to cyber-based 
threats targeting the Department's networks and information.

    Question 29.  To what extent, if any, does assigning CISO 
responsibilities to multiple bureaus increase State's risk for 
duplication, overlap, or fragmentation of information security 
responsibilities?

    Answer. The Department is uniquely structured with a professional 
security and law enforcement organization that has developed a mature, 
robust cybersecurity program over the past three decades. While I have 
been absent from the Department since 2011, my understanding is that 
this DS cyber team provides advanced threat analysis, network 
monitoring, cyber investigation support, penetration testing, 
vulnerability analysis, and cyber risk assessment, all skills which 
complement the IT security and system hygiene duties performed by the 
CISO team. Respective roles and responsibilities are carefully 
delineated, unambiguous, and periodically reviewed and reaffirmed by 
the CIO and the Diplomatic Security Assistant Secretary. If confirmed, 
I am committed to strengthening the Department's cyber security efforts 
by continuing these periodic reviews in coordination with the CIO.



                               __________


           Responses to Additional Questions for the Record 
         Submitted to Michael T. Evanoff by Senator Marco Rubio

    Question 1.  As you well know, State Department employees work 
tirelessly around the globe to keep America safe and secure. State 
Department employees don't get enough credit for the expeditionary 
diplomatic work they do, often operating in extremely difficult and 
dangerous conditions to advance America's interests. However, if our 
diplomats cannot leave the compound, they cannot do the important work 
necessary to advance American foreign policy.

   How do you balance the security of State Department employees with 
        allowing them the access beyond embassy walls that they need to 
        successfully accomplish America's mission?

    Answer. Operating overseas presents unique security challenges. In 
the face of ever-evolving threats, I believe the Department strives to 
provide the most secure environment possible for the conduct of 
America's foreign policy and though there is never a complete guarantee 
of safety, I believe that the Bureau of Diplomatic Security (DS) makes 
every effort to ensure all Department of State personnel, including 
contractors, are aware of potential risks and trained accordingly.
    If confirmed, I will ensure that the Diplomatic Security Service 
continues to makes prudent risk management decisions that allow for 
effective diplomacy while still proving for the safety and security of 
those we are entrusted to protect.

    Question 2.  As you well know, State Department employees work 
tirelessly around the globe to keep America safe and secure. State 
Department employees don't get enough credit for the expeditionary 
diplomatic work they do, often operating in extremely difficult and 
dangerous conditions to advance America's interests. However, if our 
diplomats cannot leave the compound, they cannot do the important work 
necessary to advance American foreign policy.

   Do you believe that ``expeditionary diplomacy'' is the new normal? 
        If so, how can you facilitate it through increasing access for 
        State Department employees beyond the walls of our embassies?

    Answer. It is paramount that the Department be able to engage 
diplomatically on a broad range of issues and fronts. Doing this work 
requires a diplomatic presence in some of the most difficult and 
dangerous environments in the world, including active conflict zones. 
While we must acknowledge the inherent risk of carrying out diplomacy 
in certain areas, it is important to leverage capabilities provided by 
the interagency that allows the Department to operate safely in such 
zones.
    If confirmed, I am committed to working within the interagency to 
ensure that the foreign affairs community has a safe and secure 
platform to carry out the engagement required to advance our national 
security interests. While risk can never be completely eliminated from 
our diplomatic duties, regardless of the threat level, we must always 
work to mitigate it.



                               __________





                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 1, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Rob Portman, 
presiding.
    Present: Senators Portman [presiding], Gardner, Isakson, 
Shaheen, Coons, Murphy, Kaine, Markey, and Booker.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. This hearing is called to order.
    We thank the nominees for being here, and before we turn to 
opening statements, I want to take just a moment to introduce 
these nominees, the witnesses who will be asked to fill really 
important roles at the State Department.
    First, Steven Goldstein, the President's nominee to be 
Under Secretary of State for Public Diplomacy and Public 
Affairs. Steven comes to us from the private sector where he 
served as Senior Vice President of BP Global Solutions. He has 
been there since 2012. In addition to developing marketing 
communications, data science, and social media initiatives at a 
number of large companies, including Alliance Bernstein, Dow 
Jones & Company, Mr. Goldstein also served at the Department of 
the Interior and was a staffer in the House of Representatives.
    Sean Lawler is the President's nominee to serve as Chief of 
Protocol. Mr. Lawler currently serves as Director for Visits, 
Planning, and Diplomatic Affairs at the National Security 
Council and prior to that had a distinguished career at the 
Department of Defense, including a tour as head of the Office 
of Visits and Protocol at U.S. Cyber Command.
    Lisa Johnson is a career Foreign Service officer and the 
President's nominee to serve as Ambassador to the Peoples 
Republic Namibia. Currently charge at the U.S. Embassy in 
Nassau, Bahamas, Ms. Johnson has served at U.S. diplomatic 
posts around the world including two in Africa, as well as in 
important national security positions in Washington including 
the National Security Council.
    Rebecca Gonzales, also a career Foreign Service officer, 
has been nominated to serve as Ambassador to the Kingdom of 
Lesotho. She too is a career Foreign Service officer with a 
distinguished background, currently Chief of Staff at the 
Bureau of Administration at the State Department, and has also 
held a number of other senior roles that have developed her 
expertise on African issues.
    Last but not least is James Randolph Evans, and I am going 
to ask my colleague from Georgia, who is always articulate and 
much better at the phone than I am.
    Senator Isakson. What an entrance that is.
    Senator Portman. Yes. He is getting a phone call from the 
Secretary of State telling him what he should say in this 
introduction apparently.
    Senator Isakson, the introduction is yours.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Chairman Portman and Ranking Member Coons, 
thank you very much. It is an honor to be here.
    You know, I was asked one time when I was introduced as the 
senior Senator from Georgia what exactly does a senior Senator 
do. I said, well, when somebody important from your State comes 
to town and they are nominated for a position, you get to 
introduce them. So that is what a senior Senator does.
    I have a real privilege today to introduce a Georgian who 
is a longtime friend of mine, a distinguished attorney from my 
State, a man who married way over his head in more ways than 
one, and is somebody I am proud today to recommend as President 
Trump's nominee to be Ambassador to Luxembourg.
    Randy Evans is a senior partner in the firm of Dentons in 
their financial services and institutions practice. Dentons is 
the largest law firm in the world. There is no better 
qualification that you could ask for for somebody to go to a 
place like Luxembourg, which is the second largest domicile 
next to the United States of America, financial instruments and 
institutions. So it is an important country for our country in 
a lot of ways. And Randy is exactly the type of person you want 
to have in that country representing the United States of 
America.
    I could tell you where he graduated from college. I could 
tell you all kinds of things about him, but I will tell you 
three things.
    One, his wife Linda is a beautiful, talented person who is 
a dear friend of mine and has been for years. One of the true 
joys I have in public service is going to events that I have to 
go to because I get to go to and be around Randy, around Linda. 
They are a great couple.
    Secondly, he has been a big help to me personally. In fact, 
he played the Democratic nominee for Governor, Zell Miller, 
when I ran for Governor of Georgia in 1990 and Zell Miller beat 
me, but he played Zell in the mock debates that we did. I was a 
real estate salesman, not a lawyer. So I was not used to taking 
the argumentative approach to debate. I was used to trying to 
always sell. But Randy taught me the tougher edge as well and 
made me a better man in that campaign and probably was 
ultimately responsible for me winning a few debates later on 
after I got my hat handed to me during that one. But I learned 
a lot from Randy and he taught me an awful lot.
    But he is also a Georgia Bulldog, and I just have to say, 
Senator Booker, that on the day after the Georgia Bull Dogs 
were named the number one football team in the country, it is 
important to be introducing a graduate from the University of 
Georgia, Randy Evans. [Laughter.]
    Senator Isakson. So for many reasons, our football team, 
his talent, his gift to Georgia, his wonderful wife, and the 
service he gives to our State and our country, I am proud to 
introduce President Trump's nominee for the ambassadorship to 
Luxembourg, Randy Evans, distinguished attorney from the State 
of Georgia. Randy, welcome.
    Senator Portman. I thank my colleague from Georgia, as I 
predicted, an articulate and very personal introduction. So, 
again, welcome to you, Mr. Evans.
    I would like to turn to my colleague, Senator Coons, for 
any opening remarks, after which we are going to hear briefly 
from our witnesses and have a chance to get into a dialogue. 
Senator Coons?

            STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Thank you, Mr. Chairman, and thank you to my 
dear, good friend, Senator Isakson, as well my colleague, 
Senator Booker.
    Thank you to all of you and to your families for your 
willingness to step forward and serve our Nation. Some of you 
have been doing so for a career. Some of you have been doing it 
in other ways in your home States or communities.
    I was first the chair of the Africa Subcommittee when I 
came 7 years ago, and so I am particularly interested in those 
who will serve or who may have the opportunity to serve in 
Namibia and in Lesotho. But all of you are stepping forward 
whether in Europe or in a critical position or in public 
diplomacy. And I just wanted to open by saying our diplomats 
around the world face challenging environments, face 
opportunities to move our values forward, and I am grateful for 
the chance to join Senator Portman here today and hearing your 
testimony and greeting and welcoming your families and thanking 
you for your willingness to serve.
    Senator Portman. Thank you, Senator Coons.
    And to our witnesses, you have all submitted written copies 
of your statements. Those will be included in the record. So I 
ask you to try to keep your remarks to a couple of minutes, and 
then again we will have a chance to have a little dialogue back 
and forth about some of the issues in some of the roles that 
you will be playing if you are confirmed.
    I would like to start with Mr. Goldstein, then Mr. Lawler, 
then Ms. Johnson, then Ms. Gonzales, then Mr. Evans. I am told 
that is the appropriate protocol. So Lawler will appreciate 
that. So with that, Mr. Goldstein.

 STATEMENT OF IRWIN STEVEN GOLDSTEIN, OF NEW YORK, TO BE UNDER 
            SECRETARY OF STATE FOR PUBLIC DIPLOMACY

    Mr. Goldstein. Chairman Portman, Ranking Member Coons, 
members of the committee, thank you for inviting me here today.
    I am deeply grateful to President Trump and to Secretary 
Tillerson for placing their confidence in me. I have spent the 
bulk of my career helping senior leaders in government and the 
private sector tell their stories. Now, to have the opportunity 
to help America tell its story to the world is the honor of a 
lifetime.
    I am proud to say my spouse, Bill Popeleski, is here with 
me today, and I could not do this without his love and support.
    Every day we see stories of Americans who endeavor to make 
the world a better place. Countless individuals across the 
globe benefit from our generosity and compassion. Yet, those 
who seek to undermine America do so by spreading misinformation 
about our people and our objectives. To tell the real story of 
America, we must speak with one voice to people where they 
listen. We must ensure that the State Department is harnessing 
the power of new technologies as they develop. We must also do 
everything we can to combat the radical ideologies that 
threaten Americans at home and abroad. I feel this deeply 
because I have seen firsthand the heartbreak that occurs when a 
malign force takes root and diplomacy fails to stop it.
    In January 2002, when I led communications for Dow Jones, 
``Wall Street Journal'' reporter, Daniel Pearl, was kidnapped 
in Pakistan. For weeks, we worked around the clock to bring 
Danny home. It fell to me to tell his parents how their son 
died. Danny's death was a stark example of the personal tragedy 
that lies in the wake of every terrorist act.
    The Department's Global Engagement Center is working to win 
the war of ideas that underpin terrorism. That must include 
addressing the ecosystem of thought that justifies killing 
civilians for political ends, as well as engaging the 
technology companies to identify and intervene against those 
who are likely to commit violence.
    If confirmed, I look forward to working with my colleagues 
around the world to enhance America's reputation and advance 
America's interests. Bringing diverse ideas and people together 
in common purpose has been a hallmark of America for nearly 230 
years, and our example can inspire hope in others.
    Thank you again for inviting me to speak with you today.
    [Mr. Goldstein's prepared statement follows:]


              Prepared Statement of Irwin Steven Goldstein

    Chairman Portman, Ranking Member Coons, members of the committee, 
thank you for inviting me here today.
    I am deeply grateful to President Trump and to Secretary Tillerson 
for placing their confidence in me. I've spent the bulk of my career 
helping senior leaders in government and in the private sector tell 
their stories. Now, to have the opportunity to help America tell its 
story to the world is the honor of a lifetime.
    My spouse, Bill Popeleski, is here with me today and I could not do 
this without his love and support. I am also grateful to my father, 
Bernard Goldstein, who set an example of civic engagement through his 
involvement in our hometown of Nashville; and my late mother, Sandra, 
who I'm sure is smiling down today.
    I would also like to thank the men and women who have previously 
served as the State Department's Undersecretary for Public Diplomacy 
and Public Affairs. I hope to build on their successes to enhance the 
mission-critical work of the State Department's global public diplomacy 
team.
    One of the benefits of a career in communications is the 
opportunity to speak with people from all walks of life. Every day on 
the news, we see stories of people who, in their own way, give back to 
their country and endeavor to make the world a better place. Those who 
seek to undermine America do so by spreading misinformation about our 
people and our objectives. We can fight these efforts by inspiring the 
world with our shared humanity and our great compassion.
    Vast numbers of children are orphaned by disease and war. Their 
caregivers may feel a bond with Americans like Jody Thompson, a police 
officer in Poteau, Oklahoma, who adopted a malnourished boy named John, 
whom he rescued from an abusive home.
    Where children with disabilities are treated as second-class 
citizens, their parents can find strength and hope in Americans like 
Sonja Robinson and Mikey Brannigan. A few years ago, Sonja, a well-
respected coach, moved across the country to train Mikey, who has 
autism. Mikey, with Sonja's support, recently won two golds and a 
silver at the Para World Championships.
    Sonja and Jody exemplify how we live out our ideals at home, and 
it's these same ideals that motivate us to be a source of hope around 
the world.
    We need to tell this story.
    We need to show how America is leading the fight against AIDS and 
malaria, in places where these diseases take their deadliest toll.
    We need to show how America is bringing educational opportunity to 
girls and boys in nations where schooling is still seen as a privilege 
and not a right. From textbooks to scholarships to coding academies, 
America is empowering the world through education.
    We need to show how America is often the first nation to provide 
aid when disaster strikes. Through government agencies such as USAID, 
through our robust private sector, and in our own capacity as 
individuals, Americans ease suffering and help rebuild lives in every 
corner of the globe every day.
    To tell these stories, we must ensure that the State Department is 
using every tool available, and can harness the power of new 
technologies as they develop. Consistent with the President's budget 
and the Secretary's priorities, we should aspire to have a digital and 
technology profile that rivals the best companies in Silicon Valley. 
And in an era when people everywhere have access to vast information 
sources, we must speak to people where they listen.
    If confirmed, I look forward to working with the Department's very 
talented career officials to ensure that we are speaking with one 
clear, consistent, and compelling voice. Where we see evidence of 
success, I want to build on it and scale it to other parts of our 
mission. With the right structures in place, we can respond more 
rapidly and with greater clarity to events anywhere they unfold.
    I also want to ensure that we're doing everything we can to combat 
the radical ideologies that threaten Americans at home and abroad. I 
feel this deeply, because I have seen firsthand the heartbreak that 
occurs when a malign force takes root and diplomacy fails to stop it.
    In January 2002, when I led communications for Dow Jones, Wall 
Street Journal reporter Daniel Pearl was kidnapped while on assignment 
in Pakistan. For weeks, we worked round-the-clock to bring Danny home. 
It fell to me to tell his parents how their son died. Danny's death was 
a stark example of the personal tragedy that lies in the wake of every 
terrorist act.
    As our diplomats and servicemembers lead the battle against 
extremism on the political and military fronts, the State Department's 
public affairs team must engage on the information front.
    The Global Engagement Center is working aggressively to win the war 
of ideas that underpin terrorism. That must include addressing the 
entire eco-system of thought that justifies and supports killing 
civilians for political ends, as well as intervening against those 
people who are likely to commit violence. We need to continue working 
with our inter-agency colleagues and the tech companies that produce 
the platforms where terrorists recruit and cultivate followers. We must 
also remain flexible and agile as trends change and as our enemies 
adapt.
    The State Department has a broad remit. And in all of our efforts, 
I look forward to continued engagement with this committee and with 
your colleagues in the House of Representatives. The way we conduct our 
affairs is itself a demonstration of the power of our ideals. Bringing 
diverse ideas and people together in common purpose has been a hallmark 
of America for nearly 230 years. It is an example that can inspire hope 
in others.
    Thank you again for inviting me to speak with you today.


    Senator Portman. Thank you, Mr. Goldstein.
    Mr. Lawler?

   STATEMENT OF SEAN P. LAWLER, OF MARYLAND, TO BE CHIEF OF 
PROTOCOL, AND TO HAVE THE RANK OF AMBASSADOR DURING HIS TENURE 
                           OF SERVICE

    Mr. Lawler. Mr. Chairman, members of the committee, thank 
you very much for the opportunity to speak with you today. I am 
humbled beyond words to appear before this distinguished body 
as President Trump's nominee for Chief of Protocol of the 
United States. I have deep gratitude to the President, the 
First Lady, Secretary Tillerson for their trust and confidence 
in nominating me for this position.
    Knowing any accomplishments I have are shared, I would like 
to acknowledge my wife Grace who is with me here today, and my 
son Conor, who was not available to be here. He is off at 
school. But I owe everything to both of them for their support 
and inspiration.
    I was born and raised on the southwest side of Chicago. 
Shortly to my first enlistment, I lost both of my parents. The 
Navy quickly became my family, and throughout my 21 years of 
service, I married, started my own family, and worked as hard 
as I could to succeed.
    My military service resulted in many life lessons but none 
more than service before self. Throughout my career, I was 
fortunate enough to work under phenomenal leaders and mentors 
who taught me, corrected me, and groomed me for continued 
growth. Following retirement, I spent several years as the 
Chief of Protocol at U.S. Cyber Command before assuming my 
current position on the National Security Council working 
closely with the State Department colleagues and coordinating 
foreign engagements for the President.
    The Chief of Protocol advises, assists, and supports the 
President, the Vice President, the Secretary of State on 
official matters of national and international protocol, as 
well as serving at the President's representative to visiting 
foreign leaders and bilateral chiefs of mission in the United 
States. If confirmed, I look forward to contributing in a 
unique and meaningful way to advancing the principles of 
diplomacy and enhancing our relations with the diplomatic 
community by working with a team of exceptional professionals 
at the State Department and White House, whom I have had the 
pleasure of getting to work with since January. I have 
witnessed firsthand the selfless dedication and patriotism that 
is uncommon outside military service.
    The Office of the Chief of Protocol is an integral and 
successful diplomacy and furthering the foreign policy goals of 
the administration.
    I believe my experience for nearly 3 decades in government 
makes me a well qualified candidate for this position, and if 
confirmed, I look forward to serving our great Nation alongside 
the outstanding professionals at the White House and the 
Department of State to continue to build on the framework and 
foundation for fostering diplomacy.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to appear for your consideration.
    [Mr. Lawler's prepared statement follows:]


                  Prepared Statement of Sean P. Lawler

    Mr. Chairman, members of the committee, thank you so very much for 
the opportunity to speak with you today. I am humbled beyond words to 
appear before this distinguished body as President Trump's nominee for 
Chief of Protocol of the United States. I have a deep gratitude to the 
President, the First Lady, and Secretary Tillerson for their trust and 
confidence in nominating me for this position. Knowing any 
accomplishments I have are shared, I would like to acknowledge my wife 
Grace, who is here with me, and my son Conor, who was not able to join. 
I owe everything to their support and inspiration.
    Born and raised on the Southwest Side of Chicago, I enlisted in the 
Navy directly out of High School, and shortly into my first enlistment, 
I lost both my parents. My mother to breast cancer and my father a few 
short months later to a broken heart. The Navy quickly became my 
family. Throughout my 21 years of service, I married, started my own 
family, and worked as hard as I could to succeed--not only to better 
provide for my family, but with a desire to have a greater role in 
serving my country. My wife is an immigrant of Ireland, now a 
naturalized citizen, and my son is attending college and growing up 
entirely too fast, and I sit here as a proud and humble example of what 
is magnificent about this country of ours.
    My military service resulted in many life lessons, but none more 
than service before self. Throughout my career, I was fortunate enough 
to work under phenomenal leaders and mentors who taught me, corrected 
me, and groomed me for continued growth,--and I did my best to train 
and lead our next generation of volunteer patriots and impart the same 
lessons. I learned valuable management and leadership skills as I 
climbed through the ranks. In my particular career field, I spent many 
years on the personal staffs of Flag & General Officers and senior 
members of our government. Among my responsibilities throughout several 
tours of duty were to manage administrative and personal details so 
they may devote a larger portion of their time to other important 
matters. Those duties included matters of protocol, etiquette and 
tradition in coordinating myriad events and ceremonies both ashore, 
underway and overseas. Following retirement, I spent five years as the 
Chief of Protocol in a dynamic and exciting sub-unified combatant 
command and then in my current position on the National Security 
Council where I currently work closely with my State Department 
colleagues in coordinating the foreign engagements for the President.
    The Chief of Protocol advises, assists, and supports the President 
of the United States, the Vice President, and the Secretary of State on 
official matters of national and international protocol, as well as 
serving as the President's representative to visiting foreign leaders 
and bilateral chiefs of missions in the United States. If confirmed, I 
look forward to contributing in a unique and meaningful way to 
advancing the principals of diplomacy and enhancing our relations with 
the diplomatic community by working with a team of exceptional 
professionals at the State Department and White House whom I have had 
the pleasure of getting to work with since January. I have witnessed 
firsthand the selfless dedication and patriotism that is uncommon 
outside military service.
    The many divisions of the Office of the Chief of Protocol are 
integral in successful diplomacy and furthering the foreign policy 
goals of the administration. The Protocol staff works regularly to 
build bridges of cooperation and goodwill domestically and across the 
globe. Blair House, which is an historical a treasure, provides a 
world-class venue in accommodating Presidential foreign guests and 
events hosted by Cabinet-level officials. Ceremonials is responsible 
for supporting events hosted by the President and Vice President, 
planning and executing arrangements for official functions hosted by 
the Secretary, Deputy Secretary, and the Chief of Protocol and 
organizing the participation of the diplomatic corps in official 
events. Diplomatic Affairs is responsible for the agrement process of 
new bilateral chiefs of mission, including presentation of credentials, 
coordination with the diplomatic corps and guidance, consultation and 
mediation of matters involving senior mission representatives and 
workers employed by foreign mission personnel. Diplomatic Partnerships 
provides outreach to the foreign diplomatic corps serving in Washington 
to promote greater insight and understanding of the United States and 
its economy, people and culture, its flagship program is Experience 
America. Gifts is responsible for the selection and purchase of all 
gifts given by the President, Vice President, Secretary, and their 
respective spouses to foreign leaders and processing all gifts from 
foreign governments given to the President, Vice President, Secretary, 
and other U.S. Government officials. Visits is responsible for planning 
and executing detailed programs for visiting chiefs of state, heads of 
government and other high-ranking officials hosted by the President, 
Vice President, and Secretary of State and supports overseas travel of 
the President and Vice President and their respective spouses and is 
also responsible for planning and execution of foreign travel by U.S. 
presidential delegations as directed by the White House. And finally I 
would like to acknowledge the management team which administers human 
and financial resources and general services operations for the Office 
of the Chief of Protocol to accomplish all its vital and demanding 
work.
    I believe my experience for nearly three decades in government 
service makes me a well-qualified candidate for this position, and if 
confirmed, I look forward to what I expect to be the highlight of my 
career-serving our great nation alongside the outstanding professionals 
at the White House and Department of State and liaising with the 
outstanding diplomatic corps here in Washington, D.C. to continue to 
build on the framework and foundation for fostering diplomacy.
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear and for your consideration in continuing to serve 
my country.


    Senator Portman. Thank you, Mr. Lawler.
    Ms. Johnson?

STATEMENT OF LISA A. JOHNSON, OF WASHINGTON, A CAREER MEMBER OF 
     THE SENIOR FOREIGN SERVICE, CLASS OF COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF NAMIBIA

    Ms. Johnson. Mr. Chairman, Ranking Member Coons, and 
members of the committee, I am honored to appear before you as 
President Trump's nominee to be Ambassador to the Republic of 
Namibia. I would like to express my gratitude to the President 
and Secretary Tillerson for the confidence they have placed in 
me. If confirmed, I look forward to working closely with the 
committee and with the Congress to advance our Nation's 
interests in Namibia.
    Please permit me to acknowledge my parents who are watching 
online from Florida today and my brother Mike. They have 
supported me proudly as I have represented the United States 
overseas during the past 25 years. Some close friends are 
present here today to offer their support.
    If confirmed, it would be a privilege for me to return to a 
familiar region. I began my Foreign Service career in Angola 
and South Africa, and also spent time in Namibia where I once 
drafted the Embassy's human rights report.
    Since independence, Namibia has stood out for its strong 
democratic traditions, success in combating HIV/AIDS, and 
modeled wildlife conservation efforts.
    I would like to highlight for you three priorities that, if 
confirmed, I would work to advance as U.S. Ambassador.
    First, both the United States and Namibia seek to 
strengthen bilateral trade and investment. Namibia's natural 
resources, stable economy, and strong governance make it an 
attractive prospect for U.S. business. If confirmed, one of my 
primary goals would be to promote American business and help 
our trade relationship reach its full potential.
    Second, through the President's Emergency Plan for AIDS 
Relief, or PEPFAR, the United States partners closely with 
Namibia to provide HIV/AIDS testing, education, and treatment. 
With our continued help, Namibia is on track to meet U.N. AIDS 
targets and achieve epidemic control. Importantly, the Namibian 
Government shoulders two-thirds of the costs, serving as an 
example as we seek to shift the burden away from U.S. 
assistance.
    Finally, if confirmed, my foremost priority will be 
ensuring the safety and security of American citizens, be they 
residing, conducting business, vacationing, or serving in the 
Peace Corps in Namibia.
    Mr. Chairman and members of the committee, I thank you 
again and look forward to answering your questions.
    [Ms. Johnson's prepared statement follows:]


                 Prepared Statement of Lisa A. Johnson

    Chairman Portman, Ranking Member Coons, and members of the 
committee, I am honored to appear before you today as President Trump's 
nominee to be Ambassador to the Republic of Namibia. I would like to 
express my gratitude to the President and to Secretary Tillerson for 
the confidence they have placed in me. If confirmed, I look forward to 
working closely with the committee and others in Congress to advance 
our nation's interests in Namibia.
    Please permit me to acknowledge my parents, watching online from 
Florida today, and my brother Mike, in Washington State. They have 
supported me proudly as I have represented the United States overseas 
during the past 25 years. A few close friends and colleagues also are 
present today to offer their support.
    It is a privilege for me to return to a region that is familiar to 
me. I began my Foreign Service career in Angola and South Africa, and 
also spent time in Namibia, where I once drafted the Embassy's Human 
Rights Report.
    Since independence in 1990, Namibia has stood out for its strong 
democratic traditions, its success in combatting HIV/AIDS, and its 
model wildlife conservation efforts. Namibia has a democratically 
elected president and parliament, an independent judiciary, and a free 
and open media. Though small in population, with just under 2.5 million 
people, Namibia offers promising trade and investment potential. The 
growing U.S. partnership with Namibia increases security and prosperity 
for both countries and serves as an example throughout the continent.
    I would like to share with you three priorities that, if confirmed, 
I would work to advance as U.S. Ambassador to the Republic of Namibia.
    First, both the United States and Namibia seek to strengthen 
bilateral trade and build stronger and deeper economic bonds. Trade 
delegations to and from Namibia indicate growing opportunities for U.S. 
companies. Namibia's natural resources, combined with its stable 
economy and strong governance, make it an attractive prospect for U.S. 
business. If confirmed, one of my primary goals would be to promote 
American business opportunities and help our trade relationship reach 
its full potential.
    Second, Namibia has struggled with one of the world's highest HIV/
AIDS prevalence rates. Our partnership to combat the disease has 
brought us closer than ever to bringing it under control. Through the 
President's Emergency Plan for AIDS Relief, or PEPFAR, the United 
States has partnered with Namibia to provide testing, education, care, 
support, and treatment to hundreds of thousands of people. Namibia is 
on track to meet UNAIDS targets to achieve epidemic control by 2020. 
Importantly, the Namibian Government is assuming funding and management 
responsibility for the fight against HIV/AIDS, shouldering two thirds 
of the financial burden. Namibia stands as a regional example as we 
seek to shift the burden away from U.S. assistance to host governments.
    Finally, if confirmed, my foremost priority will be ensuring the 
safety and security of American citizens in Namibia, be they living 
there, conducting business, travelling on vacation, or serving in the 
Peace Corps.
    Mr. Chairman and members of the committee, I thank you again for 
this opportunity and look forward to answering your questions.


    Senator Portman. Thank you, Ms. Johnson.
    Ms. Gonzales?

STATEMENT OF REBECCA ELIZA GONZALES, OF TEXAS, A CAREER MEMBER 
OF THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO 
 BE AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE KINGDOM OF LESOTHO

    Ms. Gonzales. Good morning. Chairman Portman, Ranking 
Member Coons, and members of the committee, I am honored to be 
considered for the position of United States Ambassador to the 
Kingdom of Lesotho. I am grateful for the confidence President 
Trump and Secretary Tillerson have shown in me by this 
nomination. If confirmed, I look forward to working with this 
committee and Congress in advancing U.S. interests and 
supporting Lesotho in its efforts to strengthen democratic 
institutions and the rule of law, reverse its HIV/AIDS 
epidemic, and achieve sustainable, broad-based economic growth.
    I would like to take a moment to thank my parents. My 
father, Colonel Jose Rene Gonzales, served in the Air Force for 
26 years and was buried in 2013 with full military honors at 
Arlington National Cemetery. My mother, Estella Gonzales, who 
is here with me today, has been a D.C. public school teacher 
for 30 years and is still teaching, and I must say yesterday 
was her birthday. So Happy Birthday, Mom.
    My son, Imagine Alexander, started his studies at the 
University of California, so he was not able to join me today, 
but I am proud of him and he is in my heart.
    And I would also like to thank my brother and sister-in-
law, Jerome and Amanda Gonzales, who are here. And I appreciate 
the support of my friends and colleagues who are here as well 
today.
    And I would also like to also say thank you to Ambassador 
Harrington, our Ambassador to Lesotho, and the country team who 
I believe is watching us as we speak here.
    If confirmed, I will focus on further strengthening the 
relationship between our two countries. My priority will be to 
protect and advance U.S. interests, including ensuring the 
safety of Americans and advancing U.S. commercial interests in 
Lesotho.
    I welcome the new government in Lesotho's efforts to lay 
the groundwork for a strong culture of accountability, rule of 
law, and much needed political reforms.
    Lesotho is an AGOA success story. However, it will need to 
show continual progress on eligibility criteria. And if 
confirmed, I will advocate and lend my support to these 
efforts.
    One of Lesotho's biggest challenges is that 25 percent of 
the adults have HIV/AIDS. This is the second highest prevalence 
in the world. If confirmed, I will promote continued efficient 
use of our health assistance dollars and ensuring our 
partnership and efforts continue to make a real difference. We 
are saving lives in Lesotho.
    Mr. Chairman and members of the committee, thank you again 
for the opportunity to appear before you today, and I welcome 
any questions you may have.
    [Ms. Gonzales's prepared statement follows:]


                 Prepared Statement of Rebecca Gonzales

    Chairman Portman, Ranking Member Coons, and members of the 
committee:
    I am honored to be considered for the position of United States 
Ambassador to the Kingdom of Lesotho. I am grateful for the confidence 
President Trump and Secretary Tillerson have shown in me by this 
nomination. If confirmed, I look forward to working with this committee 
and the Congress in advancing U.S. interests and supporting Lesotho in 
its efforts to strengthen democratic institutions and the rule of law, 
reverse its HIV/AIDS epidemic, and achieve sustainable, broad-based 
economic growth.
    I would like to take a moment to recognize and thank my father, 
Jose Rene and my mother. Estella B Gonzales. My father, Colonel Jose 
Rene Gonzales, served in the United States Air Force for 26 years and 
was buried in 2013 with full military honors at Arlington National 
Cemetery. My mother, Estella, has been a D.C. public school teacher for 
30 years, and, indeed, I am fortunate to have her with me today. I 
would also like to recognize my son, Imagine Alexander, who just 
started his studies at the University of California and is unable to be 
here today. I would also like to thank my brother and sister-in-law 
Jerome and Amanda Gonzales. I appreciate the support of my friends and 
colleagues who are here with us today.
    As a military family member I lived abroad, and this gave me a 
great appreciation for other cultures and a desire to serve my country 
by joining the Foreign Service. I have had the privilege of serving my 
country for 25 years as a Foreign Service Officer, serving in Africa, 
the Middle East and Latin America. It is this experience and a 
recognition that there is still much to learn that has prepared me, if 
confirmed, for the important task of advancing U.S. relations with 
Lesotho.
    It will be an honor to continue to serve. If confirmed, I will 
focus on further strengthening the relationship between our two 
countries. My priority will be to protect and advance U.S. interests. 
This includes doing everything in my power to ensure the safety of 
Americans in Lesotho--those who will fall under Chief of Mission 
authority, the approximately 90 Peace Corps Volunteers serving in 
Lesotho, along with the approximately 600 Americans who are resident in 
Lesotho and those who visit the country every year.
    It also includes advancing U.S. commercial interests. There are 
opportunities for U.S. companies to invest in Lesotho and to promote 
U.S. exports into Lesotho. Although Lesotho straddles the line between 
a lower-income and lower-middle income country, it is a largely 
untapped market for U.S. companies. U.S. commercial engagement can also 
be a powerful source of economic opportunity within Lesotho.
    On the political front, we know that the steps needed in Lesotho to 
address the underlying causes of instability and challenges to the rule 
of law are difficult. Lesotho's neighbors, through the Southern African 
Development Community (SADC), have been actively engaged to help 
Lesotho move beyond its recent political difficulties. The 
recommendations made by a recent SADC Commission of Inquiry, if fully 
implemented, would lay the groundwork for a strong culture of 
accountability and rule of law, and much-needed political reforms. I 
welcome the new government's commitment to implement those 
recommendations and, if confirmed, I will advocate and lend my support 
to these regional efforts.
    One of Lesotho's biggest challenges is that 25 percent of the 
adults in the country are living with HIV/AIDS. This is the second-
highest prevalence in the world. While the pandemic has devastated 
Lesotho's social and economic fabric, our partnership with the 
Government of Lesotho on health is a strong one, that is having a 
substantial positive impact. If confirmed, I will promote continued 
efficient and accountable use of our health assistance dollars in 
ensuring our partnership and efforts continue to make a real 
difference.
    Lesotho has benefitted greatly from the African Growth and 
Opportunity Act, or AGOA, which has spurred a vibrant textile and 
apparel industry in Lesotho. The textile industry is the nation's 
largest private-sector employer, with about 40,000 employees, mostly 
women. And, impressively, Lesotho is the second-largest supplier of 
textiles to the United States in sub-Saharan Africa. However, Lesotho 
will need to show continual progress on AGOA eligibility criteria, 
including those relating to rule of law and governance, to maintain its 
eligibility for AGOA trade preferences. If confirmed, I will encourage 
Lesotho's progress on the path of economic and political reform. Reform 
will foster economic growth, empower entrepreneurs, and attract foreign 
investment. I will continue to press for concrete actions that address 
concerns about impunity and the rule of law.
    Mr. Chairman and members of the committee, thank you again for the 
opportunity to appear before you today. I welcome any questions you may 
have.


    Senator Portman. Thank you, Ms. Gonzales.
    Mr. Evans?

STATEMENT OF JAMES RANDOLPH EVANS, OF GEORGIA, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
                     AMERICA TO LUXEMBOURG

    Mr. Evans. Chairman Portman, Ranking Member Coons, and 
distinguished members of the Senate Foreign Relations 
Committee, including a special thank you to our own home senior 
Senator, Johnny Isakson, a friend of mine of 30 years. Little 
did I know that we would come together at a place like this on 
a day when the Georgia Bulldogs were once again ranked number 
one in the country. [Laughter.]
    Mr. Evans. I want to thank you for the opportunity to 
appear before you to speak with you and to answer any questions 
you might have. It is, indeed, an honor and a privilege to be 
here in our Nation's capital with you.
    In addition, I thank President Trump and Secretary 
Tillerson for the opportunity serve our country, if I am 
confirmed, as the next Ambassador to the Grand Duchy of 
Luxembourg. It is an amazing place with people who understand 
and appreciate freedom and democracy with many connections to 
us Americans.
    My wife Linda, who could not be with us today, without whom 
I would not be here, knows well those connections. Her uncle, 
1st Lieutenant Richard P. LaFrance, fought to free Luxembourg 
in World War II in the Battle of the Bulge and was later 
blinded in Germany just a month before V-E Day.
    As you know, Luxembourg is a relatively small country, if 
measured by size or population, but it is a unique mixture of 
citizens who are proud of their heritage but embrace their 
connections to so many other countries and peoples from around 
the world. But what Luxembourg lacks in size, it makes up for 
in reach. Anyone experienced in international affairs knows 
that Luxembourg's influence as a thought leader extends 
throughout the world, especially in finance and technology and 
most recently in space.
    The world is full of challenges, and Luxembourg will, 
undoubtedly, be at the center of solving many of those 
challenges as a leader in the European Union, a loyal member of 
NATO, and a reliable friend to the United States of America.
    Open dialogue and communication, anchored in our shared 
values, will enable us to build even stronger bonds sufficient 
to address every challenge. This includes tackling hard 
questions, including the myriad of issues flowing from the 
United Kingdom's decision in Brexit.
    In short, there is much to do. I am eager to get started. I 
hope you will allow me to put my skill sets to work for our 
country to the very best of my abilities as the next Ambassador 
to the Grand Duchy of Luxembourg. Thank you.
    [Mr. Evans's prepared statement follows:]


                   Prepared Statement of Randy Evans

    Chairman Portman, Ranking Member Coons, and distinguished members 
of the Senate Foreign Relations Committee:
    Thank you for the opportunity to appear before you, to speak with 
you, and to answer any questions you might have. It is indeed an honor 
and a privilege to be here in our nation's Capital with you. I would 
also like to express my thanks to President Trump and Secretary 
Tillerson for their confidence in me.
    Last year, my mother passed away unexpectedly. It was one of those 
moments that forces you to stop and think about where you are and where 
you are going. Prior to that moment, I believed I had reach the 
pinnacle of my career. All that time, I had also served in a myriad of 
positions of public service from the bottom to the top while thinking I 
had done my part. Yet, at that moment, I knew then that it was time for 
me to do more. I did not know how or where, but I did know why.
    Any doubt was erased when I received this handwritten note in the 
mail from my father. It said: ``Randy, I thank you for your love. I 
appreciate the financial gift but more than the financial, I cherish 
our moments together more. Your mother and I spent a lot of time in 
prayer for you and your safety. God has blessed you with a beautiful 
gift. Use it wisely. God said through Paul in Romans, God through his 
gift is calling.''
    Calling? The only question then was how and where could I best 
answer that calling?
    Against this backdrop, I am greatly thankful to President Trump and 
Secretary Tillerson for the opportunity to answer my calling and to 
serve our country, if I am confirmed, as the next Ambassador to the 
Grand Duchy of Luxembourg. It is a beautiful place with people who 
understand and appreciate freedom and democracy and who have an 
unbelievable resiliency to overcome whatever history may throw at them.
    As you know, Luxembourg is a relatively small country if measured 
by size or population. It is a unique mixture of citizens who are proud 
of their heritage but embrace their connections to so many other 
countries and peoples from around the world. In that way, they are much 
like us Americans or, in fairness, we are much like them--it really 
doesn't make a difference. The fact is we are both very much alike.
    And, what Luxembourg lacks in size, it makes up for in punch. 
Anyone experienced in international affairs knows that Luxembourg is so 
much bigger than the number of its square miles or its citizens.
    Luxembourg's influence and its leadership and its impact extends 
well beyond Europe to the entire world. It is a thought leader and 
economic engine capable of and doing great things--especially in 
technology and space.
    It is also a country with the closest of ties to the United States, 
having been liberated twice from totalitarian occupation and standing 
steadfast with us as we together have liberated others from such 
unacceptable situations.
    My wife--Linda, without whom I would not be here today, knows well 
those connections. Her uncle, First Lieutenant Richard P. LaFrance 
fought to free Luxembourg in World War II in the Battle of the Bulge 
and was later blinded in Germany a month before V-E Day.
    And, next year will be the 100th anniversary of the end of World 
War I, and I know there will be many commemorations of the sacrifices 
made during the Great War. If confirmed, I hope to be part of them 
proudly representing the United State of America--not to tout our 
victories but instead to signal our continued commitment toward a 
future free from tyrannies and full of hope.
    The world is full of challenges and Luxembourg will undoubtedly be 
at the center of solving many of those challenges as a leader in the 
European Union, a loyal member of NATO, and a friend of the United 
States. Certainly, there will be things we will want to move closer 
together on like contributions to NATO; addressing the growing refugee 
problem and the instabilities that follow; and, leveling the playing 
field for American companies doing business around the world.
    Open dialogue and communication, beginning with our shared values, 
will enable us to build even stronger bonds sufficient to weather any 
distractions.
    From my perspective, as Singapore is the doorway to Asia, 
Luxembourg is rapidly becoming, if it has not already become, the 
doorway to the European Union. We must take advantage of such a unique 
ally with such great influence to work toward solving rather than 
debating the problems confronting the 21st century world.
    This includes tackling the hard questions such as those arising out 
of climate change, or containing the threat of global terrorism, or 
stabilizing the flow of capital to avoid financial crises. And, of 
course, there are myriad of issues flowing from the United Kingdom's 
decision in the Brexit vote to leave the European Union.
    In short, there is much to do. I am eager to get started. I hope 
you will let me put my skillsets to work for our country to the very 
best of my abilities.
    Thank you.


    Senator Portman. Thank you, Mr. Evans. With Ohio State 
being ranked number three in the country now, if the playoffs 
were tomorrow, we would be playing you. So I am trying to think 
of what I should ask Johnny to provide me as an appropriate 
bet. I will think about that while I am hearing the questions 
from my colleagues.
    I am going to wait and ask my questions. We have a good 
turnout here today, and a few have already had to leave and 
come. Everybody is busy. So I am going to turn to Senator Coons 
and then I will be coming back and asking questions of the 
nominees. Again, I appreciate your willingness to serve and 
your good testimony this morning. Senator Coons?
    Senator Coons. Thank you, Senator Portman. I will defer to 
my colleague, Senator Kaine.
    Senator Kaine. Thank you. I guess I could defer, but 
instead I will just go boldly forward. [Laughter.]
    Senator Kaine. Thank you, Mr. Chair. Thank you, Senator 
Coons, and thanks to all of you. Congratulations to each of you 
for your nominations and especially to those who are career. I 
just say being on this committee and having the chance to visit 
abroad has been amazing, and the staffs of our embassies abroad 
do such good work. I recognize what Mr. Lawler said. We have 
gotten pretty good. We can always be better at thanking our 
military for service, but we are not as good in thanking the 
U.S. civilians who are abroad, often in places that they get 
assigned to that were not their first choice, sometimes in 
places where they cannot bring family. We do not do as good of 
a job in thanking them as we should.
    I will tell you one of the things that I will mention to 
those of you who will be ambassadors abroad is when I visit, I 
usually try to take first and second tour FSOs out for coffee 
without their ambassador to ask them, you know, you have 
achieved something really important because it is hard to get a 
job as a Foreign Service officer with the State Department. 
What will be the difference between staying and making a career 
out of it and leaving? And then they offer fascinating 
observations. I will tell you this. They never dis their boss, 
but they talk about things like paperwork and bureaucracy and 
things like that that are challenges. So especially if you are 
taking the post of ambassador for the first time, paying 
attention to the first and second tour FSO folks and their 
experiences is something that I think is good.
    Let me just ask a couple of questions to you, Mr. 
Goldstein, about public diplomacy. I think the budget for 
international exchange is sort of small as a percentage of the 
big budget challenges we deal with, but I tend to think things 
like international exchanges or training foreign militaries on 
the defense side--I am on Armed Services too--which is also a 
small part of the DOD budget--these things really produce 
value.
    There is a proposal to cut this part of the portfolio of 
the State Department pretty significantly in the President's 
proposed budget submission. You did not draft up that budget. I 
am not going to ask you to comment on it. But tell me about 
your view of the value of these international exchanges that 
are within the portfolio of your nomination.
    Mr. Goldstein. Thank you, Senator, for that question.
    Every person with whom I have spoken in this process has 
impressed upon me how important the exchange and cultural 
programs are. I share that view.
    My goal, if confirmed, is to enhance the programs by 
continuing the education that participants receive, which I 
think is vitally important. It is not enough just to 
participate in the program. We need to follow up with 
individuals throughout their career as they move forward.
    We also need to create agility so that we can ensure that 
we quickly develop country programs when needed, and we should 
enhance the programs that are doing well.
    In addition, Senator, I want to look closely at the 
American Spaces program. Many are being moved to the Embassy 
for security reasons, and I want to do a study to determine 
whether that is impacting the number of people that are 
actually attending these particular programs. If so, we might 
need to work with the private sector to provide access to the 
right audience in the most appropriate location.
    Senator Kaine. Thank you for that.
    Ms. Johnson, I think Namibia is doing many things very, 
very well. One of the areas where I think as I look at their 
history there are some challenges to do better is in the area 
of human trafficking. They are a tier 2 nation right now in the 
TIP. What are some of the kinds of things that you think you 
might be able to do in your capacity as Ambassador to work with 
them and help them get even better at dealing with trafficking 
issues?
    Ms. Johnson. Thank you very much for that question, 
Senator.
    In the Bahamas where I am serving currently, Bahamas was 
tier 2 3 years ago. We helped take them to tier 1. They are the 
first tier 1 country in the Caribbean. The way we did that--it 
was a partnership through a very strong commitment on the part 
of the government, political will, and close and continued 
engagement with the United States. So taking that track record 
and looking at what some of the issues are in Namibia, I 
believe that, if confirmed, I could help them make progress. I 
think the political will is there.
    Some of the issues, some of the areas where they need to 
strengthen, more resources for victims shelters. They need to 
complete comprehensive legislation and pass it and implement 
it, as well as their national action plan. Raising awareness 
throughout the country, not just in the capital but in the 
rural areas where you have child labor, for example, and 
trafficking. I think those are the principal areas. They also 
did not have any convictions last year. So we need to 
strengthen the justice system component. But I think in all of 
those areas, they are areas where we can make progress with 
continued engagement and commitment.
    Senator Kaine. Great.
    Mr. Chair, if I could ask one more question of Mr. Lawler.
    We have instances over time. Right now, we are dealing with 
a tough one with Russia, also Cuba. During the Obama 
administration, we dealt with one with India where challenges 
lead to the recalling of personnel, and then there is a little 
bit of a retaliation. If you recall ours, we will recall yours. 
Talk a little bit about the diplomatic skills that you already 
have that you would bring to the table. Sometimes these are 
unavoidable. If a country does something that is wrong, there 
is going to be a consequence. Sometimes we almost I think 
stumble into them a little bit by accident. Talk a little bit 
about how you would approach your position and try to minimize 
misunderstandings of this kind.
    Mr. Lawler. Thank you, Senator.
    The Office of the Chief of Protocol is responsible for 
dealing directly with the chiefs of mission, the deputy chiefs 
of mission for the embassies in Washington. We are the liaison 
for the diplomatic missions. If there are any problems brought 
to our attention, we deal with those. Obviously, we follow the 
Vienna Convention ensuring that our diplomats abroad are given 
the same rights as theirs. So we do not discount any rule 
breakers or anything like that, but we will deal with those as 
they come up. And if we have any issues, we will go back and 
obviously ensure that we either ask--if there are problems, we 
will go back to the host nation and ask for immunity to be 
withdrawn. If not, we will ask for the diplomat to depart the 
country.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Portman. Senator Isakson?
    Senator Isakson. Thank you very much, Mr. Chairman.
    Thanks to all of you and congratulations on your 
appointment.
    I want to focus on our two ambassador nominees for Africa 
for just a second, if I can.
    Senator Coons and I were both on the Africa Subcommittee 
together and traveled quite frequently to Africa over a couple 
of years. First of all, the biggest product in Georgia is 
chickens, and the biggest product in Delaware is chickens. We 
brought down the lock on the door in South Africa, and now 
there are 19,000 metric tons of Georgia and Delaware chicken 
going into South Africa every year. And that was in large 
measure because of what we did on AGOA, the African Growth and 
Opportunity Act.
    Are you all familiar with that? And do you have any ideas 
of what you want to do in terms of promoting engagement with 
that? We will start with Ms. Gonzales.
    Ms. Gonzales. Thank you for that question, Senator.
    Lesotho has been an AGOA success story. Under this program, 
there have been 40,000 people who have been employed, most of 
them women. I have read this has had a ripple effect on 100,000 
family members, as well as downstream businesses.
    I think that Lesotho needs to continue its efforts to 
address rule of law and bring about good governance so that it 
will continue to be eligible under AGOA. And there are 
opportunities for diversification. In addition to that, there 
are opportunities for U.S. businesses in renewable energy, 
agriculture, water.
    As you know, Lesotho is surrounded by South Africa. There 
are 600 U.S. companies operating there who could possibly 
expand businesses into Lesotho.
    And so, if confirmed, I would work hard to identify 
business opportunities for U.S. companies, to ensure that they 
are treated fairly, and to make sure that the playing field is 
level, Senator.
    Senator Isakson. Ms. Johnson?
    Ms. Johnson. Thank you, Senator.
    AGOA for Namibia--eligibility is not an issue, but use of 
the program is. Namibia has not taken full advantage of the 
benefits under AGOA. In large part, I would say it is a factor 
of the type of economy you have in Namibia. It is a very small 
market. AGOA is a trade not aid program, and it is really 
private sector-driven. So companies are going to make business 
decisions, and they have to weigh things like the high cost of 
transportation, of electricity in deciding what type of 
business makes sense in Namibia.
    There has been a lot of success in other countries, as my 
colleague said, in the textile industry. What makes more sense 
probably for Namibia is agribusiness. And in fact, just last 
year, the U.S. Department of Agriculture certified beef 
products from Namibia as the first African beef products to be 
eligible for export to the United States. So those would be 
eligible for AGOA benefits.
    So, if confirmed, I will look to promote greater use of the 
AGOA program.
    Senator Isakson. I appreciate both of your knowledge of 
that issue. That is an important program for the United States 
and important for Africa too. I have said in many a hearing 
that Africa is the continent of the 21st century for the United 
States of America. There are more mouths to feed, more 
opportunity, more votes in the U.N. in Africa than anywhere 
else in the world right now. And the better our friendships 
are, the better economic ties we have, the better off we are 
going to be.
    Ms. Johnson, I want to commend you on the next-to-the-last 
paragraph of your printed remarks where you said, finally, ``If 
confirmed, my foremost priority will be ensuring the safety and 
security of American citizens in Namibia, be they living there, 
conducting business there, traveling there, or serving in the 
Peace Corps.'' And for Senator Coons and I, ``the serving in 
the Peace Corps'' part is very important because we went 
together to Benin because of the loss of a Peace Corps 
volunteer, Kate Puzey, who had been murdered there. And the 
Kate Puzey Peace Corps Volunteer Protection Act is now part of 
the law in the United States because of that trip that we made 
and because of what we tried to do to improve security for 
Peace Corps volunteers overseas. And Africa is the home base 
for the Peace Corps in terms of numbers. There are a tremendous 
amount of Americans there volunteering their time and helping 
our country a lot.
    So I appreciate your voluntary commitment to that in your 
statement, and I hope both of you will support the Peace Corps 
whenever they come and visit. And Senator Coons and I will try 
and come to visit you as soon as we can.
    Good luck to both of you--to all five of you. I am sorry. I 
did not want to leave you out, Randy.
    Senator Portman. Senator Coons?
    Senator Coons. Well, I would like to follow up on the 
questioning by my colleague, Senator Isakson, if I might.
    First, just an issue that was raised by Senator Kaine to 
Mr. Goldstein. On international exchanges, I too am concerned 
that there is a proposed 50 percent cut in a number of these 
programs. And one that we have seen have a significant positive 
impact across the continent of Africa is the Young African 
Leaders Initiative, so-called YALI, or the Mandela Fellows. It 
brought, in the last year a thousand young Africans to the 
United States. And I have hosted a fellow in my office now 
several years as an intern, and they spread across our country 
and go to 20 different colleges and universities for a terrific 
6-week program of training and engagement with the United 
States and then gather back here in Washington and return home.
    And on a visit to Liberia at the height of the Ebola 
crisis, I had a chance to meet our former YALI fellows convened 
by the ambassador and hear what they were doing in the face of 
this challenge and to be inspired by how many of them had 
engaged themselves in volunteer activity either launching 
nonprofits or serving as volunteers in the Liberian response to 
Ebola.
    Is this a program you are at all familiar with, Mr. 
Goldstein? And do you have any sense of its value or impact?
    Mr. Goldstein. Thank you, Senator, for that question.
    It is a program that I am familiar with, and I hope, if I 
am lucky enough to be confirmed for this role, to have the 
opportunity to meet many of the people that you just described. 
I will commit to looking very closely at this to see what we 
can do to possibly enhance this program.
    Senator Coons. Ms. Gonzales, Ms. Johnson, is this something 
you have had any exposure to, have heard of, any sense of what 
the potential is of the YALI program in the countries to which 
you may well be soon serving as Ambassador?
    Ms. Gonzales. Thank you, Senator. I am familiar with YALI. 
I think it is an enormously successful program. There are over 
3,000 Young African Leaders in Lesotho who participate in the 
network, over a hundred alumni. I think that the value that 
they bring by coming here and learning about us and then going 
back and taking what they have seen and implementing it in 
Lesotho is phenomenal. And I think that they are excited. They 
are great partners. They serve as local voices and conduits 
amplifying our programs and our values and priorities. And if I 
were confirmed, I would certainly continue to engage and 
support YALI.
    And in addition to that, we have an American corner at the 
university in Lesotho, and my understanding is that it is 
enormously popular and people are very excited about our public 
diplomacy programs.
    Senator Coons. Ms. Johnson?
    Ms. Johnson. Thank you, Senator.
    I am a big supporter of YALI. In Namibia, we have 59 alumni 
from the Mandela Fellows program, and what I understand from 
the Embassy is they are a real force multiplier for us. They 
are very accomplished in their respective fields, be it public 
sector management, nongovernmental, civil society, or 
entrepreneurship. And when they take what they have learned 
here and bring it back to Namibia, they are going to be the 
movers and shakers going forward. And it is really very 
important for the United States to partner with them and 
advance our shared interests. And we really rely on that alumni 
network quite strongly. I am very excited about engaging them.
    Senator Coons. I will ask two quick follow-up questions 
about your respective nations. Then I will have additional 
questions in the next round, if I might.
    I have been to Namibia. A number of us went there last 
February I believe. A very impressive country, making great 
progress in HIV/AIDS, terrific partner in wildlife trafficking. 
They could stand to make progress on their human trafficking 
standard.
    I was concerned by some reports about relations between 
their military and North Korea. Can you speak to that a little 
bit and help me understand how we might make progress? Because 
I think it is emblematic of the challenge we face in a dozen 
countries around the world in making progress and restraining 
the reach of North Korea's military.
    Ms. Johnson. Thank you, Senator. I am happy to talk about 
that.
    North Korea is a global menace, and all states have a 
responsibility to abide by U.N. Security Council resolutions 
and help cut off funding to the North Korean regime.
    I would say that Namibia is doing its part. Namibia does 
have a longstanding relationship with North Korea. It dates 
back to the liberation struggle prior to 1990. But countries at 
this stage are really force to choose. You can either have a 
relationship with North Korea or you can abide by the U.N. 
Security Council resolutions. And Namibia has made its choice. 
Namibia came into being under a U.N. mandate. They have great 
respect for the U.N. and U.N. Security Council.
    So what you have seen is not military cooperation with 
Namibia, but rather construction activities that have been 
carried out by state-owned firms, including building the 
ministry of defense, defense ministry buildings on other bases, 
as well as statues.
    Namibia has taken some very important steps in the last 2 
years. In 2015, they expelled the remaining North Korean 
diplomats from Windhoek. In June of 2016, they stated that they 
would end their commercial relationship with North Korea, and 
since that time, they have been implementing that commitment 
and have affirmed that they have ended contracts with North 
Korea and, most recently, that the last North Korean workers 
have departed Namibia. So I think Namibia has taken great 
strides to distance itself from North Korea and abide by the 
U.N. Security Council resolutions, and if confirmed, I would 
keep that issue very front burner on the agenda and encourage 
Namibia to continue to be very transparent with the U.N. 
Security Council on the matter.
    Senator Coons. Thank you, Ms. Johnson.
    I will have additional questions.
    Senator Portman. Let me just interject quickly here with 
regard to Korea because I was concerned about that as well. 
North Korea works in a number of different ways, and one is 
through some of their companies. The Korea Mining Development 
Trading Corporation is one. And my understanding is that there 
continues to be some relationship there perhaps through a front 
group in Namibia.
    And so I understand you are saying, Ms. Johnson, there has 
been progress made and commitments made, but I would hope that 
you would focus on this issue and perhaps have Namibia be one 
of those countries that becomes a model already for Korean 
workers, it sounds like, North Korean workers having been sent 
home because those remittances are part of how North Korea 
continues to be able to survive economically and repress its 
own people and develop its nuclear weapons and missile 
technology program. So I would just hope that that specific 
issue--as I understand it, that continues to be a problem that 
will be a focus of yours.
    Ms. Johnson. Yes, Senator. It definitely will be a focus. I 
think we also have to look at banks and ensure that financial 
flows are no longer going to North Korea. But it is my 
understanding that even front companies that have been 
designated by the UN--that relationships in Namibia have ended 
with those companies.
    Senator Portman. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Congratulations to all of you on your nominations, and I 
look forward to working with you once confirmed in the interest 
of the country.
    I want to begin with you, Mr. Goldstein, and thank you for 
taking time to meet with me yesterday. One of the things that 
we discussed is the whole disinformation issue that is facing 
this country. The Italian Government recently announced a 
program with private sector partners to help build digital 
resilience among students to help them better identify 
disinformation. Can you talk about whether you think a similar 
kind of initiative would help in the United States to address 
this problem?
    Mr. Goldstein. Thank you, Senator, for that question. And I 
did enjoy meeting with you yesterday.
    I do believe such a program would help in the United 
States, but I believe we have to do more. There is no question 
that this disinformation campaign has been of concern to many. 
We need to work with the technology companies, which I believe 
currently is at an inflexion point, to determine how we can 
interdict and figure out how to stop this from occurring.
    We also have to recognize, Senator, that social media 
accounts are just as important as financial accounts, and we 
have to take that seriously. We need to figure out how to 
disrupt and choke off the communications flows. But in addition 
to that, we need to work, as the State Department is doing, 
with Radio Free Europe, with Radio Liberty, with Current Time, 
with the Middle East network, and others to get our message out 
there. It is not just a defensive posture that we should take. 
We also need to be offensive as you noted they are doing in 
Italy in that particular program.
    Senator Shaheen. Well, thank you. I appreciate that and 
totally agree that we do need to be not just defensive but look 
at outreach that we can do to address this problem.
    As you know, one of the aspects of the Global Engagement 
Center, which is part of your portfolio, is a fund to bolster 
outside nongovernmental groups. Will you pledge that after your 
confirmation, if you are confirmed, that you will work with 
Congress to make sure that that fund is adequately resourced 
and that the funds go toward organizations and initiatives that 
can help build that kind of resilience that we are talking 
about?
    Mr. Goldstein. Absolutely, Senator.
    While I grew up in Nashville, Tennessee, yesterday's 
terrorist attack in New York occurred very close to where I 
live. So I have seen firsthand, and I had a friend who actually 
watched that occur yesterday.
    We have got to put extreme importance on the Global 
Engagement Center. We need to choke off the communications flow 
that extremists use to build their networks, and we also need 
to figure out a way to stop the recruitment of people whose 
primary goal is to do harm to our citizens and the citizens of 
our allies.
    Senator Shaheen. Well, thank you very much. And I know I 
speak for the whole committee in saying that we certainly offer 
our condolences to you and to everyone in New York on what they 
have suffered.
    I am not going to ask you a question because I know you 
have addressed this, but I just wanted to weigh in, given our 
discussion yesterday, that I share the concerns that everybody 
has expressed about the importance of our educational and 
cultural exchanges. And I hope you will continue a robust 
program and that you will look at ways in which you can make 
sure the resources are there to support those programs. I 
certainly do not support the administration's proposal to get 
rid of many of those because I think they are so important as 
we look at other areas in which we can build relationships 
ongoing. You talked about Africa as one of those, and I 
certainly think that is an indication of how important those 
exchange programs are.
    I want to ask both you and Mr. Lawler this question because 
we know that reorganization is going on within the State 
Department, and we have heard testimony before this committee 
about the reorganization. But so far, there has been very 
little information shared about exactly what is being done 
within the State Department and what the outcome of that might 
be.
    So would you both agree that Senate-confirmed State 
Department officials should work closely with this committee on 
plans to reorganize the Department? Mr. Lawler?
    Mr. Lawler. Thank you, Senator.
    Yes, that is quite important, and yes, I would agree to 
that.
    Senator Shaheen. Mr. Goldstein?
    Mr. Goldstein. Yes, Senator.
    Senator Shaheen. And do you pledge to work with this 
committee and be responsive to any requests that we have 
pertaining to matters relevant to your areas of responsibility, 
if you are confirmed? Mr. Lawler?
    Mr. Lawler. Yes, ma'am.
    Senator Shaheen. Mr. Goldstein?
    Mr. Goldstein. Yes, Senator. I look forward to meeting with 
you as frequently as you would like.
    Senator Shaheen. Thank you both very much.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you.
    I would like to follow up, if I could, on Senator Shaheen's 
questions with regard to disinformation. In your written 
remarks, Mr. Goldstein, you talk a little about the Global 
Engagement Center and focus on the important role it has in 
fighting back against Islamic extremism and providing a 
counter-narrative.
    In the wake of what happened in New York yesterday, that 
tragedy once again, we realize that people are being 
radicalized even in this country, often online and often 
through a concerted effort to reach those most vulnerable to 
that information. So we need to redouble our efforts, and I 
appreciate your commitment to that.
    And you mentioned again in your testimony the 
radicalization from Islamic extremism is one part of the Global 
Engagement Center, but actually there is another part of it 
now. As you may be aware, Senator Murphy, who was here earlier, 
and I drafted legislation that essentially rewrote the Global 
Engagement Center's authorities and mandated it to include 
state-sponsored propaganda in addition to the counter-extremist 
messaging. So the issue of disinformation propaganda that we 
are facing not just from Russia but also other countries, 
China, Iran, and others, countries that make an aggressive use 
of propaganda and disinformation comes at the expense of us and 
often our allies. And I do believe they are trying to 
destabilize democratic countries not just ours but around the 
world.
    I think this is one we are going to really need your help. 
From the cyber attacks we have seen, to the social media bots, 
to the Internet troll farms we now know more about, to state-
sponsored media outlets, including here in Washington, D.C., 
they create sophisticated information campaigns essentially to 
sort of weaponize the modern information environment. And by 
the way, this did not start with the 2016 election, and it will 
not end there unless we are more aggressive in responding to 
it.
    So I would ask today that you comment on that. As Under 
Secretary of State of Public Diplomacy, Public Affairs, you are 
going to play a key role in this. First, do you agree that 
countering this foreign disinformation and propaganda is a 
national security priority?
    Mr. Goldstein. Yes, sir, I do agree.
    Senator Portman. Second, do you share Secretary Tillerson's 
public comments that support the Global Engagement Center and 
its mission to be able to counter this disinformation both from 
extremist groups like ISIS but also nation states, as required 
in the DOD authorization act last year?
    Mr. Goldstein. Absolutely, Senator.
    Senator Portman. One of the issues we have had with the GEC 
is to get funding in there and to get the right people there. 
You mentioned Radio Free Europe earlier, and it is an important 
operation. So are others, but frankly for me, the focus should 
be more on the online communications, social media, and having 
the expertise to do that requires some funds both to attract 
the right people and to have the right technology.
    I was pleased to see that Secretary Tillerson approved the 
GEC strategic plan, and he released some funds to execute it. 
They also submitted a request to DOD for $40 million that we 
had provided for here in Congress to support the Global 
Engagement Center's efforts. We are still waiting, as I 
understand, for the final transfer of those funds, which are 
critical to GEC.
    I would appreciate your commitment today, if you are 
willing to make it, that you will be persistent in pursuing 
that funding from DOD to State to be able to ensure that the 
Global Engagement Center has the resources it needs.
    Mr. Goldstein. Yes, sir, Senator. I will be persistent in 
pursuing that funding.
    I do believe we have to be very aggressive in our response. 
I also think we must speak to people where they listen. The 
world is getting younger. 50 percent of people in Africa are 
under 25 years old, from what I have recently been told. In 
Asia, the average age is somewhere under 30. I saw a story 
recently that said even in the United States that there are 
more people 26 than any other age.
    In addition, ISIS has very persuasive videos online that 
are directed to people who are disgruntled. We have got to make 
this a priority, and you have my commitment and the commitment 
of the people within the State Department that we will do so.
    Senator Portman. Will you commit today to sharing 
information and working closely with members of this committee 
to ensure that you do have the tools and resources to be able 
to carry out this critical mission we have talked about?
    Mr. Goldstein. Yes, sir, I will.
    Senator Portman. I think that is a really important part of 
your job, and I appreciate your taking it seriously and 
reporting back to us on whether you think it is moving forward 
both with regard to the funding and resources and also the 
personnel.
    With that, I will turn to my colleague, Senator Coons.
    Senator Coons. Thank you, Senator Portman.
    Let me turn to Mr. Evans and Mr. Lawler, if I might.
    Mr. Evans, I am from the State of Delaware. We also have a 
strong financial services community. As we were discussing here 
before, one of our challenges globally in pursuing terrorism 
and those who might be our opponents such as North Korea is 
bank transparency and better understanding what is moving in 
terms of capital flows around the world.
    If confirmed as the Ambassador to Luxembourg, what would 
you be doing to help make sure that we and our law enforcement 
and intelligence communities have as strong and appropriate a 
relationship as possible with Luxembourg's fairly vigorous 
financial services sector?
    Mr. Evans. Senator Coons, thank you for that question. It 
is a critically important question because Prime Minister 
Bettel started the process of increasing the transparency in 
the banking process in Luxembourg, and I would work with him 
and with anyone who would work with us to try to continue that 
momentum toward more and more transparency. As you no doubt 
know, having watched many of your other hearings, sanctions 
have no teeth if we cannot locate the money, if we cannot find 
the accounts. And so our ability to do that will depend greatly 
on the ability to get countries like Luxembourg to continue to 
improve their transparency in terms of banking transactions.
    Senator Coons. I think our folks in OFAC in the Department 
of the Treasury do an excellent job, but we need our allies, in 
particular some of our European allies, to be more engaged and 
more forthcoming.
    A colleague raised with me a concern that I am going to ask 
you about. You served on the Georgia State Election Board from 
2003 to 2011, and in 2006, the State passed a voter ID law that 
required a photo ID. And as I understand it, two courts, both 
State and federal, enjoined that law finding it 
unconstitutional. But the State Election Board sent out 
information to voters implying that they were required to have 
a photo ID, and then further steps were taken to provide 
remedial information to voters. And it seems to me from the 
timeline, you were probably centrally involved in this.
    Help me understand your role in this, how this played out. 
It is a concern I know for a number of my colleagues.
    Mr. Evans. Well, first of all, thank you for letting me 
have the opportunity to address it. I would rather address it 
up front.
    And when the issue first came up, I went back to try to 
reconstruct what happened 11 years ago. Candidly there were a 
lot of things going on at that particular time. So here is what 
I know.
    In 2006, the Georgia legislature passed and then-Governor 
Sonny Perdue, now Secretary Perdue, signed into law a second 
attempt at a voter identification law. Now, that law was upheld 
by all of the appellate courts and is still in effect today.
    Once the United States Department of Justice cleared 
Georgia's new photo ID law, the State began to issue free 
identification cards to anyone that wanted or needed one. In 
addition, to address concerns raised in these various judicial 
proceedings, the State initiated an education effort regarding 
how to get a free ID card.
    In early September 2006, the State Election Board 
unanimously voted with bipartisan support, including the 
designee of the Democratic Party of Georgia and the Democratic 
Secretary of State, to approve a mailing explaining how to get 
a free photo ID to approximately 300,000 Georgians who had been 
identified as potentially not having an ID.
    While those letters were in the mailing process, opponents 
went to court and challenged the photo ID law and sought and 
obtained an injunction. Although many of the letters had 
already gone out, some of the letters were received after the 
court's ruling.
    The State then sent a second letter making clear that photo 
IDs would not be required to vote in the election.
    As for my part, immediately upon learning of the 
injunction, I asked for a board meeting, and although I knew 
the State was going to appeal, I insisted that the photo ID not 
be applied to that election because if they sought a stay of 
the injunction and it was granted, you would be flip-flopping 
back and forth within 60 days of the election, and I felt very 
strongly that would create too much confusion. When you look 
back, you will see a number of press reports about whether or 
not I was, quote/unquote, going soft. But the fact of the 
matter was at that moment, the appropriate course of action was 
to let the State appeal but not apply it in that election cycle 
until all of the dust had settled in the various judicial 
proceedings.
    Senator Coons. Thank you, Mr. Evans. In the background I 
got on this, there is a complex series of filings, court 
proceedings, injunctions, letters, injunctions, letters, and it 
is unclear to me exactly how this all played out. But photo ID 
voting practices are of sort of pressing concern to many of us, 
particularly if part of the role of an ambassador is to 
represent the proper functioning of democracy.
    I also just want to add to the previous conversation with 
Mr. Goldstein. In a visit to Eastern Europe I think a year ago 
in August to Estonia, to Ukraine, and to the Czech Republic 
where Radio Free Europe and Radio Liberty are headquartered, it 
was strongly impressed on me just how important these programs 
are, just how important the programming and the outreach and 
the education is. And I urge you to work on that, and I think 
Senator Portman made an important point about the combination 
of traditional media like radio and digital media are 
continuing to make sure that we are doing the best we can in 
being fairly cutting-edge.
    Ms. Gonzales, if I might just quickly. Lesotho has 
benefited more from AGOA than almost any African country. Yet, 
they have got some significant unresolved human rights 
challenges and governance and security sector challenges. How 
do you see weighing those two going forward, and do you think 
there should be consequences for Lesotho in terms of their AGOA 
eligibility if they do not continue to make progress in human 
rights and in security sector reforms?
    Ms. Gonzales. Thank you for that question, Senator Coons.
    I think the United States--we have been very engaged with 
the Government of Lesotho concerning continued AGOA 
eligibility. As you noted, human rights is a problem in 
Lesotho. There is impunity, and there have been problematic 
soldiers. And so the security sector needs reform. Specifically 
there needs to be absolute civilian control of the military.
    I think the United States has been very effective in 
engaging the Government of Lesotho with respect to continued 
AGOA eligibility, as well as consideration of a second MCC 
compact. We had our first MCC compact from 2008 to 2013. 
Lesotho was being considered for planning for a second MCC 
compact, and then that was put on hold. And we have made it 
very clear that for Lesotho to be eligible for a second MCC 
compact, it needs to have security sector, constitutional, and 
parliamentary reforms. And in addition to that, it needs to 
show that it will be able to sustain its first MCC compact. So 
I think that we have been very effective in leveraging our 
programs and pushing for democratic institutions and rule of 
law, and if I were confirmed, I would continue that message. 
Thank you.
    Senator Coons. I believe in the power of MCC and, in 
particular, the desire of many countries to have a shot at a 
second compact. I have seen it work to motivate countries to 
make changes. So I look forward to hearing about your progress 
in that regard.
    If I might, with the indulgence of the chair. Mr. Lawler, 
just help me understand what your admirable long service for 
the U.S. Navy and National Security Council will do to provide 
you with the skills and preparation necessary for a role that 
may at times be delicate and difficult and involves a lot of 
juggling and managing sometimes a very wide and disparate 
community here.
    Mr. Lawler. Thank you, Senator, for the question. It is 
very important.
    Over my career of almost 30 years now, I have been working 
within the government, support to senior members of the 
military and our government. Most importantly, just working 
backwards during this administration since January, working 
with the President's schedule with foreign leaders--I am sorry. 
I am losing my train of thought.
    Senator Coons. I am tempted to ask questions about the 
upcoming Asia trip, but I am not. [Laughter.]
    Mr. Lawler. You know, it is hard to articulate going back 
really almost 30 years of qualifications. Protocol has been my 
job, kind of my bread and butter. 5 years prior to this joining 
the administration on the National Security Council in January, 
I did protocol at the U.S. Cyber Command, foreign engagements 
once or twice a week. I have lots of experience. I have lived 
abroad for 6 years, traveled the world, very few places I have 
not been.
    And one of the things with protocol is obviously to do no 
harm. Going into this, one of my goals right off the bat is to 
just ensure that--put a good face and set the stage for 
diplomacy for the President.
    Senator Coons. Thank you, Mr. Lawler.
    Let me thank, if I might, Grace and Conor who I know is not 
here, but anyway, thank you.
    And to Ms. Johnson, to your parents and brother.
    To Mr. Evans, to Linda who I know is not with you but is 
supporting you.
    To Estella, Happy Birthday, and thank you for 30 years of 
teaching and to your late father for his dedication and service 
to our Nation.
    And, Mr. Goldstein, wonderful to have Bill with us, to have 
your husband present and the support of your family.
    Thank you to all five of our nominees today. I really 
appreciate your testimony.
    Senator Portman. Senator Shaheen?
    Senator Shaheen. I wanted to pick up, Mr. Evans, on the 
comments that Senator Coons made about voting because I was in 
Armenia in 2003 as part of an observer mission to their 
parliamentary elections. And I noticed some improprieties in 
the voting, and when I raised that with the moderator at the 
polling place, what his response to me was, well, you have no 
reason to raise this with us because you could not get your 
voting right in Florida in the 2000 presidential election.
    So I think it is very important that we model good 
democratic procedures in our voting, that we denounce voter 
suppression efforts, and that we show the rest of the world a 
good model for voting. So I would just echo his comments about 
how important that is.
    I do want to ask you about your views on both NATO and the 
EU because having been in Europe a number of times since the 
new administration began, there is great consternation in parts 
of Europe about what our views continue to be on the 
transatlantic relationship, on the importance of NATO, on the 
EU, and how important it is to that transatlantic relationship.
    So can you tell me what your views are on the EU and NATO?
    Mr. Evans. Let me take them, if I can, one at a time.
    I do not think NATO has ever been more important in the 
history of the NATO to be candid. I think Russia poses a 
greater threat today than it has at any time probably since the 
Cuban missile crisis. Its techniques and methods are much more 
aggressive, much more cyber-oriented, much more technologically 
oriented, but it means that it is all the more important the 
NATO nations all come together and have a united defense 
because if there is a crack, that is where they penetrate. And 
so as far as NATO goes and, as you know, Luxembourg is a valued 
member of NATO.
    Now, in fairness, we have to work a little bit on their 
contribution. They do not meet the Wales commitment of 2 
percent. They are down at .48 or .46 percent with a commitment 
to go to .6 percent by 2024. But I have made a pretty decent 
living out of getting more money out of people than they wanted 
to give. So I am hoping that I can put those skill sets to work 
to get not only Luxembourg but other countries up to their 
commitment and the Wales commitment.
    As far as the European Union, I think it is right now in a 
state of transformation as far as what we can tell. Our firm 
has 25 offices in 17 European nations. We come together once a 
year, and we can get firsthand reports on what is happening in 
the EU. Obviously, Brexit was a major blow or impact to the EU. 
There are other countries that have some movement about whether 
or not the EU is sustainable long-term. But I think as a valued 
trading partner, it is enormously beneficial to the United 
States. It is much easier to have a bilateral treaty with the 
EU as a single unit than it is to have bilateral agreements 
with each of the different European nations in the EU.
    But at the end of the day, in fairness I think the member 
nations of the EU are going to have to decide their future. I 
think they are grappling with some serious questions even now 
as they adapt to Great Britain's departure. It appears to me 
most experts agree it will take about 2 to 3 years before we 
see those sorted out.
    Senator Shaheen. Brexit certainly seems to be creating as 
many problems for Britain as it does for the EU at this point.
    But given what you said and the fragility of the EU and the 
challenges that they are facing, how important is it for us to 
reaffirm our commitment to the importance of the security of 
Europe and the EU?
    Mr. Evans. Absolutely critically important because it makes 
them vulnerable. Our enemies take advantage when we are 
divided. That is the most vulnerable point that we have. And so 
unity is most important whenever you are facing such aggressive 
adversaries, overt aggression, making no secret of their plans. 
That is the moment where we have to come together because if we 
do not, we just render ourselves vulnerable to an enemy who is 
intent on defeating us.
    Senator Shaheen. Thank you.
    Ms. Johnson, Senator Coons and Ms. Gonzales just talked 
about the Millennium Challenge Corporation and how important it 
has been. It concluded in Namibia in 2014. Can you talk about 
some of the successes that resulted in Namibia from its 
participation in MCC?
    Ms. Johnson. Thank you, Senator, and certainly.
    The compact was very successful in Namibia, in fact, so 
successful they worked themselves out of a job and were not 
eligible for a second compact because they reached upper middle 
income status. There were a lot of successes in the areas of 
tourism, infrastructure, and agriculture.
    But Namibia does still face economic challenges. They have 
a very high unemployment rate, 34 percent, probably 50 percent 
for people under 35. And you have got a population that is very 
young. 57 percent are under the age of 25. A huge income 
disparity. My understanding is that the government of Namibia 
is working very hard on some of those problems and that they 
are really trying to foster inclusive growth looking at how to 
incentivize manufacturing, entrepreneurship, improve the 
business climate further to attract trade and investment. So 
while it is true that the international assistance to Namibia 
is going down, it is now the Government of Namibia's 
responsibility to continue their economic growth.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Portman. Thank you, Senator Shaheen.
    So, first, I appreciate the testimony today and all of you 
have had a chance to answer questions. Mr. Lawler was left out 
earlier. I am glad that Senator Coons asked him a little bit 
about his background and what he is going to do. I will say, 
Mr. Lawler, you get high marks from the professional career 
folks I have talked to at NSC and at the White House, but also 
the political people for your professionalism and your 
integrity. You are going to need it. This is a really important 
job.
    And one aspect of your job that we have not talked about 
today I would like your comments on is how you deal with the 
diplomatic missions here in this country. And my understanding 
is, having known some of your predecessors, that that is an 
important part of your job is to be mindful of the other 
diplomatic missions. And we have had some huge issues just in 
the last year, expelling Cuban diplomats most recently, 
expelling Russian diplomats. Some of these diplomats we 
believed were engaged in inappropriate activities. Some of it 
was in response, as I understand it, to broader geopolitical 
problems.
    But my question to you would be, when tensions with the 
United States and these foreign countries develop and prompt us 
to do these expulsions or close diplomatic facilities, what 
role does your office have in that, and how do you feel about 
that?
    Mr. Lawler. Thank you, Senator. That is obviously a very 
important issue not just for the State Department, but also for 
the Nation.
    Again, if confirmed, my main role in this is to be the 
President's liaison with the diplomatic corps in Washington, 
D.C. So I will deal directly with the chiefs of mission, the 
deputy chiefs of mission with any issues that they have that 
arise or any allegations that arise.
    But really I would just like to put maybe a little bit of a 
positive spin on this question. I very much look forward to 
this aspect of the job. Dealing with the President and 
accompanying him and introducing him is a great honor.
    But another big, large portion of this job is actually 
meeting with these ambassadors as they arrive, as they get 
credentialed, taking them to the White House and building 
relationships with them. There are programs right now in the 
State Department. One of them is Experience America, which when 
I first read about it, I was a little suspicious at the cost, 
but it is a wonderful, wonderful program where we take the 
diplomatic corps in Washington, spread them out into the United 
States, get them out of the Washington, D.C. bubble, meet 
constituents, and build exchanges.
    So I think to answer your question, really it is the 
relationship building on the front end and meeting with all of 
these ambassadors and building relationships so when there are 
troubles, they can be candid and we will have a better 
relationship.
    Senator Portman. Well, again, thank you for your 
willingness to take on this new role. And I think it is a 
logical evolution given your background in protocol in your 30-
year career in the U.S. Navy.
    Ms. Johnson, Namibia. Senator Kaine asked you about human 
trafficking and how to get Namibia up to a tier 1 country. It 
is an issue that I have strong interest in but, more 
importantly, so does this entire Senate and this committee. And 
so we want to encourage you to work with them, again, to 
provide more of a model. The MCC program and the contract I 
think was effective, but we still have not made the progress we 
need to make on human trafficking.
    But on wildlife trafficking, we also have an issue in 
Namibia, and it is not only in Namibia. It is, unfortunately, 
pervasive in many countries in Africa. It not only has 
devastating impacts on wildlife and ecotourism in particular 
but also helps to fund terrorist activities. And that link has 
been confirmed more probably in the last decade than prior to 
that and it continues to be a problem.
    I guess my question is, do you have a commitment to this 
conservation program that Namibia has attempted to implement? 
There is legislation that Senator Coons actually drafted. He is 
the author of the End Wildlife Trafficking Act. I was one of 
his cosponsors, and it encourages you to provide support, 
particularly with community conservation efforts. So can you 
talk a little about that?
    Senator Isakson's question about economic development was 
focused on AGOA, and you talked about the importance of beef 
exports and that is important. But I would assume--and you tell 
us--that ecotourism is even a bigger part of the economy in 
Namibia and that wildlife conservation is key to keeping that 
ecotourism healthy.
    Ms. Johnson. Thank you, Senator.
    I actually have a very strong commitment to conservation, 
environmental protection coming from Washington State. It is 
very close to my heart.
    The Namibians actually brag about having enshrined 
environmental protection in their constitution. And they have 
been a model for sub-Saharan Africa in their communal 
conservancies. They have over 80 of them now, and that is a 
strong partnership between the Government of Namibia, local 
communities, NGOs, and the United States Government that 
actually provides some income for local communities from 
ecotourism and sport hunting.
    But Namibia does still have challenges. There was a spike 
in rhino poaching last year. Two-thirds of the world's black 
rhinos are located in Namibia. I think there were 60 poached 
last year. It is down to 27 so far this year. They also have 
trouble with illicit wildlife trafficking networks, which are 
becoming increasingly sophisticated, as you alluded to.
    So that is why we do continue to put some resources into 
grants with international NGOs. We are working with the 
Namibian Government on their draft national strategy to combat 
wildlife trafficking and also providing some training and 
technical assistance for ministry of environment and tourism 
park wardens and for customs officials. And we are also going 
to be working with them on the judicial side to ensure 
successful prosecutions.
    I think one of the really good signs is a single animal is 
poached in Namibia and it is front-page news. The Namibians 
know how important it is for them to protect this resource.
    So I definitely commitment to you that, if confirmed, I 
will continue to implement the intent of the End Wildlife 
Trafficking Act, which has really helped us, to strengthen our 
international partnerships and cooperation with countries to 
combat wildlife trafficking and poaching.
    Senator Portman. Well, I thank you for that answer, and I 
appreciate your commitment.
    Let me ask you about a specific program. As you know, 
Namibia is engaged in a regional effort as well with other 
countries, Botswana, Angola, Zambia, Zimbabwe, and some 
conservation organizations to conserve the Okavango River 
delta, which is such a critical habitat for endangered species 
and apparently an amazingly beautiful area and critical to 
ecotourism in the region.
    We have now invested as the U.S. Government, as I 
understand it, $40 million to help conserve that delta through 
watershed management programs and resource management programs.
    I assume you are aware of that program, and if confirmed, 
will you commit to working with Namibia to engage deeply in 
this Okavango River Basin project?
    Ms. Johnson. Absolutely, Senator. I actually had the 
fortune to visit the Okavango Delta when I served in South 
Africa. It is a beautiful area, and you have my full commitment 
to that effort.
    Senator Portman. Well, again, thank you all for being here. 
We appreciate all five of you being willing to serve. A few of 
you have done this for a long time in your career in the 
Foreign Service and in the military and a couple of you are 
coming out of the private sector. I had the opportunity at one 
point to serve as U.S. Trade Representative, and people asked 
me what was it like. I said just an amazing honor to represent 
our great country around the world and that is what each of you 
will be doing in your own ways.
    We will have differences here in this committee on policy 
issues, but we have no differences in terms of thanking you for 
your willingness to serve. And once you are confirmed--and I 
believe you will be based on the answers you gave today--we 
want to be able to support you and your colleagues to best 
represent the United States of America throughout the world. 
Thank you.
    This hearing is now adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

           Responses to Additional Questions for the Record 
   Submitted to Irwin Steven Goldstein by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As a communications professional, I have worked 
consistently to promote the values of transparency and openness 
reflected in the First Amendment, which is fundamental to our 
democracy. Working at Dow Jones, the publisher of The Wall Street 
Journal, I was a strong advocate for press freedom in the United States 
and around the world. I was deeply involved in efforts to free reporter 
Daniel Pearl, who was kidnapped and subsequently murdered in Pakistan, 
and worked with colleagues in Pakistan and the Middle East to press for 
the protection of Mr. Pearl's rights both as an individual and as a 
journalist.
    I believe that all people are entitled to human rights and, 
throughout my career, have worked to ensure that everyone is treated 
equally. I put my commitment to equality into practice, and it is core 
to how I do my job.

    Question 2. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. As an executive and manager, I have always sought to create 
a diverse workplace and provide opportunities for all staff members to 
take on additional responsibilities and advance their careers. I have 
tried to set an example by being open, fair, and encouraging, so others 
would feel they were being supported. I pledge to continue leading in 
this manner at the Department of State, should I be confirmed.

    Question 3. What steps will you take to ensure each of the 
supervisors who you oversee as Under Secretary of State for Public 
Diplomacy are fostering an environment that is diverse and inclusive?

    Answer. The Secretary of State has called for more diversity within 
the Department of State's ranks, and I fully support this drive and 
pledge to sustain and promote it. I expect any supervisor reporting to 
me to create an environment that is fair and equal to people of diverse 
backgrounds and perspectives. If confirmed, I look forward to affirming 
my commitment to diversity and how we, as a team, live these values in 
how we manage. I will make clear by my own actions and conduct that 
fostering a diverse and inclusive work environment must be a top 
priority for supervisors and staff alike at all levels of the 
Department.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

    Question 7. Do you acknowledge that the Russian Government carried 
out an influence and disinformation campaign aimed at the 2016 U.S. 
presidential election? Do you acknowledge that the Russian Government 
subsequently has carried out similar efforts to influence elections in 
Western Europe?

    Answer. Yes. U.S. intelligence community assessments make clear 
that the Russian Government undertook an influence and disinformation 
campaign aimed at the 2016 U.S. presidential election. Russia uses 
similar tactics to attempt to influence elections worldwide.

    Question 8. If confirmed, do you commit to working to address 
Russian influence and disinformation campaigns through the full 
exercise of the authorities of the Undersecretary for Public Diplomacy 
and Public Affairs, including the work of the Global Engagement Center 
(GEC), International Information Programs (IIP), and Bureau of Public 
Affairs (PA)?

    Answer. Yes. Russia is engaged in a campaign to undermine core 
Western institutions and weaken faith in the democratic and free-market 
system. This campaign is aggressive and coordinated. If confirmed, 
countering these disinformation activities would be a priority for me, 
leveraging all of the capabilities under my authority, including the 
Global Engagement Center, the Bureau of International Information 
Programs, and the Bureau of Public Affairs.

    Question 9. The mandate for the Global Engagement Center was 
altered by statute last year to also include efforts to counter foreign 
state propaganda against the United States.

   If confirmed, do you commit to fully implement congressional intent 
        reflected in legislation related to the Global Engagement 
        Center?

    Anawer. Yes.

    Question 10. If confirmed, what specific steps will you take to 
ensure that the GEC fulfill its statutory mandate and which countries 
will you prioritize as part of that effort?

    Answer. If confirmed, I would work with colleagues at the 
Department of State and the interagency community so that the GEC can 
fulfill its mandate through the use of technology and an ever-growing 
network of on-the-ground, counter-messaging partners to conduct its 
counterterrorism mission. Priority nations for this effort include 
Russia, China, Iran, and North Korea.

    Question 11. If confirmed, what steps will you take to ensure that 
the GEC full responds to the challenges posed by Russian disinformation 
and influence campaigns?

    Answer. If confirmed, I would work with the GEC and colleagues 
elsewhere to counter Russian disinformation by, in part, strengthening 
coordination of U.S. Government efforts in specific sub-regions; 
enhancing the capacity of local actors to build resiliency to 
disinformation in their communities; and convening anti-disinformation 
practitioners, journalists, and other influencers to exchange best 
practices, build networks, and generate support for U.S. efforts 
against disinformation.

    Question 12. If confirmed, how do you plan on using the GEC and our 
Embassies to reach a larger and/or targeted audience abroad that 
includes cultural, religious, and country-specific considerations in 
achieving our CT/CVE goals?

    Answer. If confirmed, I would promote the adoption by the 
Department of private-sector best practices in the use of information 
technology. This would include active and targeted use of the full 
range of social media platforms, including country- and region-specific 
platforms and advertising where appropriate, as well as online data 
analytics tools to measure how content is received by certain 
audiences, to help ensure the effectiveness of U.S. messaging abroad. 
Our Embassies are and will continue be a valuable part of our efforts 
to stay on top of how local and regional audiences obtain and consume 
information.

    Question 13. If confirmed, do you commit to ensuring that the State 
Department accepts the full amount of funding transfers from the 
Defense Department for the Global Engagement Center to conduct 
activities to address Russian disinformation?

    Answer. I understand that the Department very much appreciates the 
importance Congress places on combatting disinformation. Further, I 
understand that Secretary Tillerson has requested $40 million in 
funding from the Department of Defense to counter state-sponsored 
disinformation from Russia and other nations, commensurate with the 
threat each poses. If confirmed, I will carefully evaluate GEC 
activities to ensure the funds are being used effectively.

    Question 14. The Secretary of State belatedly accepted $40 Million 
in DOD funds that was authorized for transfer to the use of the GEC. If 
confirmed, what steps will you take to ensure the effective use of 
these funds to advance the GEC's activities? Are there activities that 
could have been undertaken, but won't be, given that the Secretary 
accepted less than the full amount of DOD funds that was authorized for 
transfer?

    Answer. I understand that the Department of State is working with 
the Department of Defense (DoD) to transfer funds for the GEC's 
mission, as authorized by the FY 2017 National Defense Authorization 
Act. Secretary Tillerson's request of $40 million in DoD funds came 
after a review process designed to ensure the funding would be used as 
effectively as possible. Through that process, the Department 
determined that the GEC could reasonably obligate, monitor, and 
evaluate $40 million in counter-disinformation programming this fiscal 
year. If confirmed, I will carefully evaluate GEC activities to ensure 
the funds are being used effectively.

    Question 15. If confirmed, do you commit to brief this committee 60 
days after taking office on the administration's strategy to address 
Russian disinformation in Europe and around the globe?

    Answer. Yes. If confirmed, I would welcome the opportunity to brief 
your committee on the Department of State's efforts to address Russian 
disinformation in Europe and around the globe.

    Question 16. What do you think the biggest challenge to countering 
disinformation from foreign state actors is in the United States?

    Answer. I believe the biggest challenge is determining clearly and 
without doubt the origination of the disinformation, and in responding, 
we must be careful not to sacrifice our own democratic values. The 
United States should always present an accurate portrayal of America, 
its citizens, and our role in the world. We improve the prospects for 
success in countering disinformation when we pursue solutions that 
enhance our own credibility.

    Question 17. You testified about the importance of working with 
technology companies to counter disinformation, particularly on social 
media. Based on what we currently know about how state actors used 
social media to try to influence public opinion and sow discord, if 
confirmed, how will you engage internet and social media companies to 
address the Russian Government's use of their platforms for 
disinformation and influence campaigns? What specific steps would you 
recommend that the technology companies take to prevent further 
attempts by the Russian Government to inappropriately influence the 
American electorate? What steps that technology companies have taken 
thus far do you applaud, and what else do you think they should do?

    Answer. If confirmed, I would meet with key technology companies as 
soon as possible to increase their collaboration with the Department. 
Engaging with the technology sector, particularly internet and social 
media companies, is critical to addressing disinformation campaigns 
directed by foreign nations. While I applaud the willingness of 
technology companies to appear before Congress and increase their 
transparency with respect to election-related advertising and 
communications, no doubt more needs to be done. I look forward, if 
confirmed, to consulting with colleagues at the Department, with 
Congress, and others to better ensure foreign government disinformation 
efforts, including those aimed at the American electorate, are 
effectively countered. Solving this is a priority.

    Question 18. As you know, five American soldiers have been killed 
in Africa this year in countries battling terrorism and violent 
extremism. The Under Secretary for Public Diplomacy and Public Affairs 
leads America's public diplomacy outreach, which includes messaging to 
counter terrorism and violent extremism. If confirmed, what specific 
messaging strategy would you seek to advance for Somalia and Niger to 
counter terrorism and violent extremism? What steps would you take to 
strengthen such messaging?

    Answer. I understand that the Department of State already engages 
in some regional counterterrorism messaging in Africa, including in the 
Somali language. If confirmed, I would consult with colleagues at the 
Department to understand better what is currently being done and to 
identify other opportunities to use messaging to counter violent 
extremism in Somalia and Niger.

    Question 19. Part of the mission of the Under Secretary for Public 
Diplomacy and Public Affairs is expanding and strengthening the 
relationship between the people and Government of the United States and 
citizens of the rest of the world. How will you strengthen the 
relationship between Africa and the United States in the face of the 
administration's proposal to slash funding for one of America's 
signature programs for Africa-PEPFAR-which has heretofore enjoyed 
bipartisan support?

    Answer. The relationship between Africa and the United States is of 
vital importance. If confirmed, I will help lead the U.S. Government's 
efforts to strengthen ties between the United States and foreign 
publics in Africa and around the world. I am a strong proponent of 
medical, cultural, and education diplomacy, such as the Young African 
Leaders Initiative (YALI) and PEPFAR, and I plan to build on what is 
currently being done, within the resources that are allocated by 
Congress. Public Diplomacy tools are a valuable means of expanding 
relationships, and I commit to looking into the effectiveness of these 
tools and to supporting those that demonstrate success.

    Question 20. What role should the State Department play through its 
public communications and public diplomacy initiatives to promote 
democratic values and human rights?

    Answer. Our core American values are Freedom, Democracy, and 
Equality. We need to support and encourage a free press, freedom of 
religion, and the right to dissent. We aspire to be an example to the 
world. Our role, as we tell America's stories, is to inspire other 
countries to follow our lead. American values are the principles that 
have enabled us to be a beacon to the world, and Public Diplomacy is 
one of the best tools our government has for communicating those values 
directly to people overseas.

    Question 21. Under previous Republican and Democratic 
administrations, the State Department spokesperson held a daily press 
briefing, a practice that has been discontinued in 2017. How often do 
you think the State Department spokesperson should hold press 
briefings?

    Answer. I am a firm believer in more, rather than less, 
communication. For many years, the Department of State's press briefing 
has been an important tool for explaining U.S. foreign policy and 
national security interests to American citizens and foreign audiences. 
If confirmed, I plan to conduct a review of the Department's media 
practices, including press briefings, and provide recommendations on a 
way forward to the Secretary.

    Question 22. The public-both in the United States and across the 
globe-look to the spokespeople for the State Department to lay out 
diplomatic priorities, foreign policy goals, and explain the rationale 
for the actions the United States takes. How important do you think it 
is for an agency like the State Department, whose critical work affects 
people around the world, to be transparent and forthcoming in 
explaining U.S. foreign policy and diplomacy? How will you seek to 
ensure that the Department remains committed to transparency in 
explaining its actions to the American public and the world?

    Answer. It is important for the Department of State to be 
transparent and forthcoming in explaining U.S. foreign policy and our 
diplomatic efforts. If confirmed, I will strive to be as transparent as 
possible in carrying out my duties. The importance we place on 
transparency and freedom of expression--core American values--can serve 
as a model for the world, and our own communications should reflect 
that.

    Question 23. If confirmed, how will you work to broaden State 
Department public affairs efforts to ensure that they reach foreign 
audiences on the platforms where they most frequently consume news and 
information?

    Answer. We need to speak to people using the platforms on which 
they listen, and that includes heavy use of social media. The majority 
of people in Asia and Africa are under the age of 30, and young people 
consume news far differently than previous generations did. The State 
Department already uses a wide range of analytical tools to evaluate 
audience preferences and more effectively deliver U.S. messaging. If 
confirmed, I will seek out opportunities to broaden these efforts.

    Question 24. In your testimony, you talked about the importance of 
capitalizing on social media platforms to communicate to a broad 
audience. You have significant corporate communication experience; 
however, the audience the State Department seeks to reach is comprised 
of a multitude of very diverse audiences across the globe. What 
specific experience do you have in developing and launching digital and 
social media campaigns that have effectively targeted and reached a 
broad audience?

    Answer. When I led communications at TIAA-CREF, we were industry 
leaders in using social media to attract new customers and respond to 
the needs of a diverse base of existing customers. Because the 
financial services industry is highly regulated, we had to calibrate 
carefully our social media messaging. I understand how important it is 
to ensure that messages are communicated in ways that resonate with 
diverse audiences. I also have worked with a start-up technology 
company that enabled me to expand my understanding of communications 
technology and algorithms. If confirmed, I look forward to learning 
more about the unique audience considerations at the Department of 
State and how I, as Under Secretary, can help the career Public 
Diplomacy practitioners better reach these groups.

    Question 25. What more can the State Department do to improve its 
image, and public perception of the U.S. abroad, especially in 
countries where public opinion of the United States or U.S. foreign 
policy has declined in the past year?

    Answer. The United States has a great story to tell. We do more to 
promote international security and economic development than any other 
country in the world. There is a demand for U.S. technology, education, 
entertainment, and tourism. This presents an opportunity for the 
Department of State to increase support abroad for U.S. policy 
priorities.
    If confirmed, I would identify those countries where we need to 
enhance public perception of the United States and determine what we 
can do to improve public opinion. Strategies to consider include 
strengthening Department messaging on the scope of U.S. development and 
security support, increasing promotion of high-demand programs like 
U.S. education, and ensuring our diplomats abroad have timely, 
accurate, and compelling policy guidance for use with local audiences. 
We need to gain trust and respect with foreign publics by reaching 
people where they listen using clear language that they can understand.

    Question 26. As the Department continues to engage in a 
reorganization effort, many senior leadership posts remain vacant, and 
embassies are unable to fill posts while the hiring freeze remains in 
effect. This has caused some of our foreign partners to question our 
commitment to diplomacy and to continue to serve as a leader on the 
global stage. For instance, at the U.N. General Assembly earlier this 
year, the significant reduction of State Department senior officials in 
attendance adversely affected our ability to fully engage with our 
counterparts. If confirmed, what can you do, and what will you commit 
to doing to ensure that our foreign allies retain their confidence in 
our commitment to building relationships and remaining engaged in 
foreign diplomacy?

    Answer. Secretary Tillerson has made it clear that the Department 
of State is committed to retaining America's leadership role in the 
world, while pursuing greater operational efficiencies. He has 
confidence, as do I, that the highly skilled and knowledgeable people 
of the Department can deliver the value that the American people 
deserve. They will get the job done, and the United States will 
continue to lead. The redesign effort aims to help accomplish this 
goal.
    Public Diplomacy has an important role to play in building 
relationships and engaging foreign publics. If confirmed, I commit to 
fully supporting the efforts of the Department's Public Diplomacy 
practitioners around the world and to strengthening and enhancing the 
tools at their disposal.

    Question 27. Government corruption and human rights abuses are 
drivers of radicalization and bolster the message of violent 
extremists. How will you use the resources of your Under Secretariat to 
address corrupt and abusive governments to counter violent extremism?

    Answer. If confirmed, I will work closely with the bureaus under my 
authority, with other bureaus in the Department of State, and across 
the interagency to ensure that the tools of Public Diplomacy are fully 
leveraged to help address the causes of violent extremism, including 
government corruption and human rights abuses.

    Question 28. Greater outreach to youth audiences is something that 
you shared as a priority in your hearing. If confirmed, how do you plan 
on using both our Public Diplomacy resources in Washington and in our 
Embassies to reach these audiences and to ensure that these activities 
and outreach consider gender equities to reach an equal number of women 
and girls?

    Answer. I believe that all Public Diplomacy programs should 
consider gender equity and take steps to help women and girls overcome 
the barriers they face in accessing information in certain areas of the 
world. For example, the Bureau of Educational and Cultural Affairs 
seeks to provide educational opportunity through a wide range of 
education programs to both girls and boys in nations where schooling is 
still seen as a privilege, not a right.

    Question 29. If confirmed, how will you leverage flagship public 
diplomacy tools such as the International Visitor Leadership Program, 
and academic programs such as Fulbright to advance U.S. values and 
goals abroad and ensure these programs continue to be funded to support 
our global priorities?

    Answer. I believe that international exchange programs are a vital 
part of Public Diplomacy efforts to advance U.S. values and goals 
abroad. If confirmed, I intend to review carefully the effectiveness 
and impact of the Department of State's exchange programs and ensure 
appropriate funding is assigned to those that provide the greatest 
value in support of global U.S. policy objectives.

    Question 30. It was reported in a recent Wall Street Journal 
article that several State Department managed J-1 visa exchange 
programs--including Summer Work Travel, Au Pair, Intern, Trainee, and 
Camp Counselor--are under review by the Department and White House as 
part of the President's Buy American, Hire American Executive Order.

   If confirmed, your job would be to oversee the Department of 
        State's regulatory agenda and ensure the proper process is 
        followed. As you may be aware, the Senate Appropriations 
        Committee just approved a provision in the FY18 bill that 
        requires, if the administration is considering any changes to 
        the J-1 program, the full notice and comment of the 
        Administrative Procedure Act (APA) and consulting with the 
        committees of jurisdiction, including this committee, is 
        followed. Do you commit to carrying out the full APA notice and 
        comment process, as well as to consulting with relevant 
        congressional committees?

    Answer. Yes, if confirmed, I commit to adhering fully to APA 
requirements and consulting with the relevant congressional committees 
regarding any proposed regulatory changes to J-1 exchange programs. My 
understanding is that the Department of State is not currently 
proposing reductions in the number of participants in private sector-
managed J-1 programs--including Summer Work Travel, Au Pair, Intern, 
Trainee, and Camp Counselor--and that any rulemaking affecting these 
programs already goes through a process that involves a notice in the 
Federal Register and an opportunity for public comment. I also 
understand that the Department follows regular Congressional 
notification procedures regarding how any proposed regulatory 
modifications to J-1 exchange programs would affect the Public 
Diplomacy goals of, and the estimated economic impact on, the United 
States.

    Question 31. The State Department recently put forward a set of 
policy priorities, which include asserting U.S. leadership and 
influence, bolstering U.S. national security, and fostering economic 
growth for the American people. The State Department's diverse set of 
international exchange programs directly support all three of these 
goals. If confirmed, what steps will you take to expand and strengthen 
our international exchange programs? If confirmed, will you commit to 
continuing to support State Department exchange programs as key 
elements of America's diplomatic engagement with the world?

    Answer. I agree that international exchange programs are a vital 
part of U.S. Public Diplomacy efforts, and if confirmed, I commit to 
helping ensure that the Department of State continues to prioritize its 
engagement with emerging world leaders through these programs. I 
believe academic, cultural, and professional exchange programs should 
remain significant and effective tools for achieving foreign policy 
goals, building ties, and establishing networks among current, and 
future, American and foreign leaders and policymakers.

    Question 32. What impact would the funding cuts proposed by the 
administration have on the effectiveness and impact of State Department 
international exchange programs? Can you explain the rationale to cut 
and curtail our engagement with emerging leaders from around the world 
via exchange programs?

    Answer. I have not yet had the opportunity to review the budget for 
international exchange programs, but will do so if confirmed. Further, 
if confirmed I look forward to participating in the full FY 2019 budget 
process.



                               __________


           Responses to Additional Questions for the Record 
     Submitted to Irwin Steven Goldstein by Senator Robert Menendez

    Question 1. The Under Secretary for Public Diplomacy is not the 
spokesperson or face of the department, but in charge of critical tools 
for promoting American values and interests to foreign audiences. The 
United States has always formulated and promoted policies rooted in our 
values as a democratic, free, and pluralistic society, inspiring people 
all over the world. How would you define American values? Do you 
believe it is in our interest to promote those values through Public 
Diplomacy initiatives?

    Answer. Our core American values are Freedom, Democracy, and 
Equality. We need to support and encourage a free press, freedom of 
religion, and the right to dissent. We aspire to be an example to the 
world. We will not impose our values on others, but our role, as we 
tell America's stories, is to inspire other countries to follow our 
lead. American values are the principles that have enabled us to be a 
beacon to the world, and Public Diplomacy is one of the best tools our 
government has for communicating those values directly to people 
overseas.

    Question 2. What Public Diplomacy programs that would be coming 
under your purview do you believe are the most successful? How do you 
define the success of Public Diplomacy programs?

    Answer. If confirmed, I look forward to leading a comprehensive 
analysis of all our Public Diplomacy programs. In my conversations with 
Members of Congress and their staffs, it was impressed upon me how 
valuable programs such as the Young African Leaders Initiative are 
because they encourage entrepreneurship, good governance, and other 
American values among future leaders. The American Spaces program also 
appears to be successful and, if confirmed, I intend to examine the 
impact of security arrangements on attendance levels and ways to work 
with the private sector to increase access to the right audiences. In 
addition, the Fulbright and other academic exchange programs serve an 
important purpose.
    The success of Public Diplomacy programs should be based on their 
ability to advance key American interests, and adapt to the needs of 
foreign audiences in a constantly changing geopolitical landscape.

    Question 3. Do you believe exchange programs and information 
programs further our foreign policy objectives?

    Answer. Yes. Exchange programs send Americans abroad to study and 
conduct research, which expands our ability to compete in the global 
economy by developing the foreign-language, cross-cultural, and 
leadership skills U.S. employers seek. Educational exchange programs 
promote U.S. higher education as a favored destination of exceptional 
foreign students, who in turn contribute nearly $36 billion annually to 
our economy. International Visitor Leadership Programs connect future 
leaders with their U.S. counterparts, fostering long-term relationships 
that bolster effective diplomacy. These and other exchange and 
information programs seek to promote American values, enhance America's 
image, and strengthen support for U.S. policies, which increases our 
nation's ability to achieve its foreign policy goals.

    Question 4. Do you believe you will have the resources necessary to 
fully execute your responsibilities and programs?

    Answer. I do believe the administration's proposed budget provides 
the resources necessary to carry out the Public Diplomacy programs and 
activities most important to our nation's interests. If confirmed, I 
will work to ensure that our Public Diplomacy responsibilities are 
carried out effectively and efficiently.
    Question 5. As you pointed out during your hearing, the 
Broadcasting Board of Governors (BBG) plays an important role in 
fighting disinformation and promoting U.S. interests overseas, but the 
FY 2018 budget request represents a $63.1 million decrease or 8.4 
percent reduction from the prior year. How do you believe this will 
impact our ability to advance our security interests, including 
countering Russian misinformation and violent extremism?

    Answer. While the administration's FY 2018 budget request includes 
a reduction in BBG's funding compared to FY 2017 enacted levels, the 
request envisions only small adjustments in funding for efforts to 
counter Russian misinformation and violent extremism. For instance, 
funding would continue for Current Time, BBG's 24/7 channel launched 
this year in Russian that broadcasts to former Soviet states and 
Russian-speaking populations. The Middle East Broadcasting Network 
(MBN), responsible for a wide range of programming in Arabic to counter 
violent extremism, is slated for a relatively modest reduction ($5.3 
million) from the FY 2017 level. I do not expect the request would 
substantially degrade the BBG's ability to combat Russian 
disinformation and violent extremism.
    As the administration works with Congress to establish final FY 
2018 funding levels for the BBG, I would certainly be mindful of the 
BBG's critical mission in advancing American security interests, 
including countering Russian misinformation and violent extremism.

    Question 6. How do you define your role and responsibilities in 
relation to the BBG?

    Answer. The Under Secretary of State for Public Diplomacy and 
Public Affairs represents the Secretary of State on the Broadcasting 
Board of Governors and provides foreign policy guidance to help the BBG 
prioritize its activities and language services and to allocate 
resources accordingly. The Under Secretary also coordinates with the 
BBG to develop a comprehensive and coherent strategy--and long-term, 
measurable objectives--for the use of Public Diplomacy resources.
    I would note that neither the Under Secretary nor the Board are 
involved in making editorial decisions for the BBG networks. There is a 
``firewall'' established by the U.S. International Broadcasting Act 
that prohibits interference with the objective, independent reporting 
of news by BBG journalists, thereby safeguarding the ability of BBG 
journalists to develop content that reflects the highest professional 
standards of journalism. The Under Secretary does, however, work with 
the BBG to develop appropriately identified editorials that accurately 
present the views of the U.S. Government.

    Question 7. The BBG budget also funds the Office of Cuba 
Broadcasting (OCB), which has been instrumental in combatting the 
repressive Castro regime, but the FY 2018 OCB request is $4.5 million 
below last year. How will this reduction affect our signature 
programming through Radio and TV Mart!? As Under Secretary for Public 
Diplomacy and Public Affairs, how will you ensure that we continue to 
offer the people of Cuba uncensored information and support despite 
these reductions?

    Answer. I appreciate your interest in the role that the Office of 
Cuba Broadcasting has played vis-a-vis the Cuban regime. I share your 
view that the goals of Radio and TV Marti should continue to provide 
uncensored information to a country lacking in the free-flow of 
information. As the Secretary of State's representative on the 
Broadcasting Board of Governors, if confirmed, I would evaluate 
potential budget reductions and trade-offs in light of this goal.

    Question 8. I was pleased to hear you state in your hearing that 
the State Department has finally started to allocate funding for the 
Global Engagement Center and requested a transfer from the Pentagon for 
the remaining funds. How will you ensure that this center funded by 
Congress to counter Russian disinformation and violent extremism is 
adequately resourced and supported?

    Answer. My understanding is that the Department of State is pleased 
to be working with the Department of Defense (DoD) to effect a transfer 
of funds to the Global Engagement Center (GEC), as authorized by the FY 
2017 National Defense Authorization Act. Proposed activities to be 
funded by the transfer include coordinating U.S. Government efforts in 
specific sub-regions; enhancing the capacity of local actors to build 
resilience against disinformation; and convening anti-disinformation 
practitioners, journalists, and other influencers to exchange best 
practices, build networks, and generate support for U.S. efforts 
against disinformation. Additionally, I understand that the GEC also 
leverages staff detailed from across the interagency--including from 
the intelligence community, DoD, the U.S. Agency for International 
Development, the Department of Homeland Security, and the Broadcasting 
Board of Governors, as well as from within the Department of State--to 
coordinate U.S. Government messaging efforts to counter disinformation 
and ensure they are streamlined and not duplicative. If confirmed, I 
would work closely with leadership within the Department of State, the 
interagency, and the administration to ensure the GEC has the human, 
budgetary, and technological resources needed to accomplish its mission 
effectively and efficiently.



                               __________


           Responses to Additional Questions for the Record 
  Submitted to Irwin Steven Goldstein by Senator Christopher A. Coons

    Question 1. I understand that the administration is reviewing the 
J-1 visa category in relation to implementing the President's Executive 
Order on Buy American, Hire American. What role would you play in 
reviewing draft regulations or policy guidance that could alter J-1 
programs?

    Answer. I intend to review carefully any suggested changes to J-
visa regulations and policy guidance, which currently facilitate Public 
Diplomacy engagement with approximately 300,000 participants from 200 
countries and territories annually. J visas are for educational and 
cultural exchange programs, not work programs. Additionally, private 
sector-managed exchange programs are funded primarily through fees paid 
by participants, at virtually no cost to the U.S. Government. My 
understanding is that existing regulations prohibit J-visa programs 
with a work component from displacing American workers and that the 
Department of State is not currently proposing reductions in the number 
of participants in these programs.

    Question 2. I led an amendment to the Senate's FY 2018 State, 
Foreign Operations, and Related Programs Appropriations bill that would 
require any changes to the Exchange Visitor Program to go through 
consultation with Congress and a formal rulemaking process. If 
confirmed, do you commit to adhering to a transparent process that 
includes meaningful input from the stakeholder community if 
modifications to the Exchange Visitor Program are considered?

    Answer. Yes. I want meaningful input from the stakeholder community 
and will make any decisions on the Exchange Visitor Program in a fully 
transparent manner.



                               __________


           Responses to Additional Questions for the Record 
    Submitted to Irwin Steven Goldstein by Senator Edward J. Markey

    Question 1. What is your response to calls for U.S. Public 
Diplomacy to adopt more propagandistic approaches to communicating with 
foreign publics, in order to more effectively combat disinformation 
about the United States and its policies?

    Answer. I do not support a propagandistic approach to communicating 
with foreign publics. The United States needs to present an accurate 
portrayal of America, its citizens, and our role in the world using the 
diverse array of Public Diplomacy tools, including social media 
platforms like Facebook and Twitter. By focusing on American values 
such as transparency, accountability through elections, and rule of 
law, we increase our credibility and improve prospects for success in 
countering disinformation.

    Question 2. How can U.S. Public Diplomacy effectively reach publics 
deluged by a ``firehose'' of opposing views and disinformation from a 
multitude of sources?

    Answer. To reach publics deluged by opposing views and 
disinformation effectively, U.S. Public Diplomacy must speak with one 
voice where people listen. This effort should use all forms of 
communication including, but not limited to, social media, BBG networks 
and programs such as Radio Free Europe/Radio Liberty and Current Time, 
and any other vehicle that allows America to accurately show that its 
core values of democracy, equality, and freedom underpin all that it 
does. We also need to help enhance the capacity of local actors and 
other credible voices to expose false narratives and inoculate 
communities against disinformation

    Question 3. Does U.S. Public Diplomacy risk becoming too reactive, 
trapped in a perpetual cycle of defensive explanation?

    Answer. Yes, I do believe that U.S. Public Diplomacy risks becoming 
too reactive. With the stakes as high as they are, we cannot afford to 
be playing defense all the time. We must have a strategy to actively 
communicate our message and anticipate future challenges, so that the 
ground is well seeded with the truth before our opponents attempt to 
spread their misinformation.

    Question 4. How can U.S. Public Diplomacy best capture the 
attention and trust of foreign publics in a way that durably diminishes 
their susceptibility to untruthful propaganda?

    Answer. U.S. Public Diplomacy practitioners around the globe 
actively work to counter disinformation, debunk myths, and reassure 
allies. There is an emphasis on improving media literacy, expanding 
civil society capacity, and digital diplomacy outreach, but there is 
much more that can be done. I plan to look at all available research, 
meet frequently with tech companies, and develop clear and concise 
messages designed to diminish susceptibility to untruthful propaganda. 
The average age in many countries is under 30. We must reach them where 
they listen, and that is what I plan to do if confirmed.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Irwin Steven Goldstein by Senator Cory Booker

    Question 1. Do you believe that our partners have the will and the 
capability to counter efforts by ISIS, its sympathizers, or any follow-
on organization that relies on spreading its extremist messages?

    Answer. My understanding is that the Department of State is 
expanding its counter-terrorism messaging efforts through a growing 
network of foreign government and non-governmental partners, as people 
and groups closest to the battlefield of narratives are often the most 
credible voices in countering terrorist propaganda. Many of these 
groups already have the ability to counter terrorist propaganda, but 
other groups need more capacity.
    The Department's Global Engagement Center (GEC) currently works 
with messaging centers in the United Arab Emirates, the United Kingdom, 
Malaysia, Saudi Arabia, and Djibouti, among other locations. These 
messaging centers harness the creativity, expertise, and unique 
credibility of local actors to generate positive content that 
effectively challenges the falsehoods of ISIS and other international 
terrorist organizations. The GEC helps develop the capacity of these 
and other credible voices to reach the right audiences by sharing best 
practices from the private sector, including online audience analysis.
    Within the next twelve to eighteen months, the GEC intends to map, 
assess, and coordinate U.S. training and support for foreign national 
and international messaging centers in East Asia, Africa, and the 
Middle East to better enhance their abilities and strengthen the 
network among the centers and the United States.

    Question 2. Mr. Goldstein, in my travels to Saudi Arabia, the West 
Bank, Jordan, and other areas, I have been consistently told that 
international exchanges are one of our diplomats' best tools. People to 
people exchanges I believe are one the most effective ways to build 
long-term relationships and mutual understanding between U.S. and 
emerging foreign youth and leaders.
    In the President's FY 2018 budget for State Department programs, 
however, exchanges funding received a proposed cut of over 50 percent 
from FY 2017 levels.

   Do you agree with the argument that exchanges funding should be 
        cut? Are there certain exchange programs that should be 
        expanded?

    Answer. I agree that person-to-person exchanges are a vital part of 
America's Public Diplomacy effort, both short term and long term. If 
confirmed, I intend to review carefully the effectiveness and impact of 
the Department of State's exchange programs and the funding assigned to 
each. Programs that provide great value may warrant expansion.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Sean P. Lawler by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my 21 years in uniform, there were many 
occasions where I was personally involved in promoting human rights and 
democracy. A few specific examples would include: non-combatant rescue 
operations in Tirana, Albania in which I was awarded the Humanitarian 
Service Medal; I served in Operation SUPPORT HOPE to provide refugee 
support during the Rwandan genocide; received a personal award for 
support operations in Kosovo and Bosnia Herzegovina following 
hostilities. Finally, I was deployed at sea in Operations IRAQI FREEDOM 
and ENDURING FREEDOM. Preserving our American rights and supporting 
freedoms around the world has been the focal point of my career.

    Question 2.What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups?

   What steps will you take to ensure each of the supervisors is 
        fostering an environment that is diverse and inclusive?

    Answer. Throughout the course of my military career, I witnessed 
first-hand the importance of a diverse working environment that 
promotes teamwork and mutual respect. If confirmed, I look forward to 
leading the Office of the Chief of Protocol by example in the promotion 
of an atmosphere where discrimination has no place.
    Establishing a workplace culture that promotes, encourages and is 
supportive of inclusion, equality and diversity is vital for growth and 
personal development. If confirmed, I will work together with 
supervisors to develop mission critical strategies for increased 
awareness and develop best practices to promote a culture that is built 
on inclusion through understanding, open dialogue, training, team 
exercises and mentoring opportunities.

    Question 3. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 4. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. Neither I nor my immediate family have financial interests 
in any country aboard.



                               __________


           Responses to Additional Questions for the Record 
       Submitted to Lisa A. Johnson by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my Foreign Service career, I have promoted human 
rights and democracy around the globe in meaningful ways.
    Most recently, in The Bahamas, my team and I worked closely with 
the Bahamian Government and its Inter-Ministerial Task Force to combat 
Trafficking in Persons. By undertaking extensive awareness and training 
campaigns, improving victim identification and care, and arresting and 
prosecuting traffickers, The Bahamas in 2015 became the first Tier One 
country in the Caribbean. With our support and close engagement, The 
Bahamas since has maintained its Tier One ranking.
    The Bahamas has the highest incidence of rape in the Caribbean. I 
speak publicly about sexual and gender-based violence, and the Embassy 
funded an NGO grant for a training and awareness program that was 
implemented throughout the islands.
    Corruption is a major problem in The Bahamas. At the same time, 
civil society is relatively weak. I convened NGOs advocating for 
transparency and accountability, supported participation in U.S.-funded 
exchange programs and a grant-writing workshop, and helped local 
Bahamians begin establishing a Transparency International (TI) local 
chapter. For the May 2017 General Elections in The Bahamas, I developed 
and implemented a U.S. Embassy International Observers Mission. We 
fielded over 30 observers and coordinated closely with OAS and 
Commonwealth observer missions in evaluating conduct of the election.
    My greatest and most-wide ranging impact on human rights and 
democracy was as Office Director for Africa and the Middle East in the 
State Department's Bureau of International Narcotics and Law 
Enforcement (INL). Effective rule of law is a necessary component of 
any democratic system. In the wake of the Arab Spring, my team 
initiated a program in Tunisia to reform the Ministry of Interior and 
security forces, re-orienting them toward serving the Tunisian people, 
including through community policing programs. In Morocco, we built the 
capacity of an independent anti-corruption commission and assisted an 
NGO in creating a cell phone ``app'' to allow citizens to report 
corruption. In the Democratic Republic of the Congo, we worked with 
NGOs to deliver justice to rural victims of rape through an innovative 
mobile courts system. Our INL programs in over 30 countries in Africa 
and the Middle East, from professionalizing police forces to increasing 
court efficiency to improving prison conditions, all had at their core 
a strong human rights and democracy component.

    Question 2. What are the most pressing human rights issues in 
Namibia? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Namibia? What do 
you hope to accomplish through these actions?

    Answer. Namibia is a stable multiparty democracy with regular, 
free, and fair elections. It has an independent judiciary and free and 
open media.
    The State Department's human rights report notes that the most 
significant human rights problems in Namibia include the slow pace of 
judicial proceedings and resulting lengthy pretrial detention, 
sometimes under poor conditions, and violence and discrimination 
against women and children. If confirmed, I would work with the 
Government of Namibia and civil society to address these problems while 
also highlighting Namibian successes so that they can serve as an 
example to the region.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Namibia in 
advancing human rights, civil society and democracy in general?

    Answer. Namibia is approximately twice the size of California, with 
a population of just under 2.5 million. Physical travel to locations 
and to meet with key human rights partners throughout the country can 
be challenging, but if confirmed, I would place a strong focus on 
engagement outside of Windhoek.
    Also, in order to fully engage on these issues, it is imperative 
that U.S.-Namibian relations continue to strengthen. Outreach and 
public diplomacy programs can provide Namibians with accurate 
information regarding U.S. efforts in the country and dispel any 
lingering mistrust toward U.S. intentions and foreign policy 
objectives. If confirmed, I will continue to work through our mission 
to invest in the next generation of Namibian leaders, including through 
programs like the Young African Leaders Initiative.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Namibia? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with human rights, civil society, 
and other non-governmental organizations. If confirmed, I will also 
ensure that my staff fully implements and complies with the Leahy Law 
and similar efforts.

    Question 5. Will you and your embassy team actively engage with 
Namibia to address cases of key political prisoners or persons 
otherwise unjustly targeted by Namibia?

    Answer. The Human Rights Report indicates that there were no 
reports of political prisoners or detainees in Namibia last year. If 
confirmed, I would engage with Namibia to address such cases should 
they arise.

    Question 6. Will you engage with Namibia on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I would work with the Government of Namibia 
on matters of human rights, civil rights, and governance, while also 
highlighting Namibian successes as an example for the region.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Namibia?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. As a leader and manager in several diplomatic posts, I know 
that diversity enriches our work, as it does the United States as a 
whole. If confirmed, I will tap the diversity of my staff to benefit 
all at the Mission. I also pledge to promote a range of backgrounds and 
perspectives in the individuals whom I review for future positions.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed, I will ensure that everyone on my team is 
treated professionally, that their rights are respected, that they are 
safe, and that they have the tools they need to perform their jobs. We 
are all one team working to advance U.S-Namibia relations and the 
interests of the United States and the American people.

    Question 12. Namibia ranked 53rd of 176 on Transparency 
International's Corruption Index.

   In what sectors is most official corruption found in Namibia?
   If confirmed, what tools do you have at your disposal to help 
        address corruption and what actions will you take as Ambassador 
        to advocate for improved transparency and good governance with 
        relevant Namibian stakeholders?

    Answer. The State Department's Human Rights Report notes that 
Namibian law provides criminal penalties for corruption by officials; 
however, the Government did not implement the law effectively, and 
officials sometimes engaged in corrupt practices with impunity. There 
were isolated reports of corruption by individuals in government.
    If confirmed, I will use the full resources of our Mission to 
strengthen U.S. efforts to work with the Government of Namibia, as well 
as with non-governmental organizations, to increase transparency and 
promote good governance.

    Question 13. The State Department has ranked Namibia ``Tier 2'' on 
trafficking in persons.

   If confirmed, what types of U.S. diplomatic efforts and assistance, 
        if any, would you pursue to help Namibia better tackle this 
        problem?
   In what ways might such efforts be incorporated into existing U.S. 
        programs that aim to help strengthen Namibia's security sector 
        and the rule of law?

    Answer. Our annual trafficking in persons report designates Namibia 
as a ``Tier Two'' country. This means that, while the Government of 
Namibia does not fully meet the minimum standards for the elimination 
of trafficking, it is making significant efforts to do so.
    The Government of Namibia's efforts include identifying and 
referring to care, more trafficking victims, drafting a national 
mechanism to refer victims to care, and strengthening inter-ministerial 
coordination on trafficking cases.
    The Government did not meet minimum standards, according to the 
Trafficking Victims Protection Act, in several key areas. While the 
Government did not conduct TIP awareness activities or convict any 
traffickers in the last reporting period, it did conduct a major 
awareness event in July of this year. The Deputy Prime Minister and 
Minister of International Relations and Cooperation as well as the 
Minister of Gender Equality and Child Welfare hosted the high-level 
event to mark the World Day against Trafficking in Persons.
    If confirmed, I would continue the productive dialogue with the 
Namibian Government on this issue and include it in my engagement 
across the Government. For example, I would look for opportunities to 
provide Namibian officials with TIP-specific training, and use public 
diplomacy resources to amplify our messaging regarding this problem.

    Question 14. Namibia is named in the President's Emergency Plan for 
AIDS Relief (PEPFAR) Strategy for Accelerating HIV/AIDS Epidemic 
Control (2017-2020) as one of 13 high-burdened countries prioritized 
for investment during the life of the strategy to achieve the 90-90-90 
targets by 2020, whereby 90 percent of people living with HIV know 
their status, 90 percent of people who know their status are accessing 
treatment and 90 percent of people on treatment are virally suppressed.

   What are the main challenges facing the country in achieving their 
        90-90-90 goal?
   If confirmed, what will you do to support Namibia and its 
        communities in achieving that goal?

    Answer. Approximately one in seven Namibians is HIV positive. This 
represents a profound and continuing challenge, but the country has 
made substantial progress in dealing with HIV/AIDS, and our partnership 
under PEPFAR has been integral to that success.
    Last year, fewer than 8,000 Namibians were newly infected with HIV, 
less than 5 percent of babies born to HIV-positive mothers became 
infected, and fewer than 3,200 patients died from HIV/AIDS. Most 
striking, an estimated 100,000 Namibian lives--nearly 5 percent of the 
country's total population--have been saved.
    Currently, 88 percent of Namibians with HIV know their status. Free 
antiretroviral (ARN) treatment is widely available across the country; 
77 percent of infected adults and 90 percent of infected children are 
on ARVs. Namibia is extremely close to being among the first African 
nations to achieve the 90-90-90 goals, but significant challenges 
remain, including high rates of infection among youth, and, 
disproportionately, young women. In the years to come, it will be 
necessary for the United States and Namibia to continue to fund 
specific efforts to target at-risk populations.
    The United States has played an integral role in these 
achievements, which have required a major investment. Of the roughly $2 
billion in foreign assistance the U.S. Government has invested in 
Namibia since 2003, about $1.5 billion has been dedicated to the fight 
against HIV/AIDS. Namibia's Government directly funds two-thirds of the 
national HIV response. In the years to come, it will be important to 
continue transitioning to greater Namibian ownership of the HIV/AIDS 
response.
    If confirmed, I will continue to partner with the Government of 
Namibia on this critical policy and humanitarian priority.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to Lisa A. Johnson by Senator Edward J. Markey

    Question 1. The reported commercial and military ties between 
Namibia and North Korea are concerning. In 2017, U.N. sanctions 
monitoring experts twice reported on their investigations into the 
activities in Namibia of the Mansudae Overseas Project Group, a North 
Korean construction firm that has violated U.N. sanctions, and the 
Korea Mining Development Trading Corporation (KOMID), a U.N.-sanctioned 
North Korean entity that has engaged in prohibited financial 
transactions.In early 2017, the U.N. experts reported that the Namibian 
Government had admitted that KOMID and Mansudae had been active in 
building and supplying a national munitions factory between 2010 and 
2015; that Mansudae had provided laborers for the project; and that 
Mansudae had been involved in the construction of monuments and 
government buildings in Namibia.Namibia has reported that it ended its 
relations with the two firms, in compliance with U.N. Security Council 
(UNSC) Resolution 2270 (2016), but such activities may have continued.

   What is the extent of reported Namibian military and commercial 
        ties to North Korea?
   What has been the U.S. response to Namibia's ties to North Korea? 
        Has Namibia responded adequately to U.S. outreach regarding 
        Namibia serving as a continued source of funding for North 
        Korea's illicit activities?
   Will you commit to pressuring the Government of Namibia to ending 
        its commercial and military relationship with North Korea?

    Answer. North Korea's stated intention to put a nuclear warhead on 
an ICBM poses a grave threat to the entire world. North Korea is a 
global menace, and in response, we need to see action from all 
countries to increase pressure on the DPRK to compel the regime to 
abandon its U.N.-proscribed nuclear and missile programs.
    In response to engagement from the United States and the 
international community, Namibia has taken positive steps to address 
the threat posed by North Korea. In February 2015, the Namibian 
Government expelled the last of the official North Korean diplomats 
present in Namibia. In June 2016, the Namibian Government publicly 
announced an end to its commercial relationship with North Korea. Since 
then, Namibia has implemented that statement and affirmed that it is 
abiding fully by all U.N. Security Council Resolutions related to North 
Korea, including by ending contracts with UN-designated companies. The 
Namibian Government has further stated that all North Korean nationals 
have departed the country. Namibia has made great strides in distancing 
itself from North Korea and eliminating sources of foreign funding for 
the Kim regime's ballistic missile and nuclear weapons programs.
    While we have been pleased with Namibia's recent cooperation, the 
United States will not hesitate to act unilaterally to address 
individuals and entities supporting the North Korean regime. On August 
22, the Treasury Department designated Qingdao Construction (Namibia), 
a Namibian-based subsidiary of a Chinese company, for connections to 
the DPRK. Treasury also sanctioned a Namibia-based North Korean 
official linked to the Mansudae Overseas Projects, a DPRK firm also 
subject to U.S. sanctions. Through this action, we made clear that we 
will go wherever the evidence leads to cut off funding that supports 
Pyongyang's unlawful activities.
    If confirmed, I will make engagement on North Korea a priority and 
continue to work with Namibia to meet its pledge to comply with all 
U.N. Security Council resolutions and to further curtail any relations 
with the North Korea.



                               __________


           Responses to Additional Questions for the Record 
      Submitted to Rebecca Gonzalez by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Throughout my personal and professional life I have 
championed human dignity, respect, inclusion, and opportunity. These 
guiding principles inform all my interactions. I make a proactive and 
concerted effort to promote human rights, equality, and democracy in my 
leadership, diplomatic engagement, and interactions in the work 
environment. As the Acting Labor Attache in Panama, I worked on 
workers' rights, engaging the Government of Panama on labor conditions, 
formation of new unions, fair hiring practices, and collective 
bargaining agreements. I met regularly with a range of labor leaders, 
and advocated for workers' rights with an often reluctant and 
unresponsive Labor Ministry. As a result of my efforts and 
contribution, I was able to advance our efforts in promoting workers' 
rights with the Government of Panama and improve working conditions for 
workers.
    As a career Foreign Service Officer with a focus on management, 
much of my personal effort to promote human rights and democratic 
principles has occurred within our Embassies and the Department. Over 
the course of my career, I recruited and led diverse teams and 
advocated and advanced issues of fairness, equity, and inclusiveness 
within the workplace.
    For example, when serving in India I worked closely with and 
mentored a multi-ethnic staff, promoting a culture of respect and 
inclusion so that regardless of gender, religion, or background, women 
and men alike felt comfortable and valued. In my daily management of 
the team, I provided opportunities for personal and professional growth 
and ensured we made reasonable accommodations for our employees with 
disabilities. I am proud that those I hired and mentored continue to 
thrive and are important partners contributing to our foreign policy 
goals in India. While serving in Saudi Arabia, there were instances 
when certain employees lectured and admonished third-country female 
employees for not being ``good Muslims''--i.e. modest and wearing the 
abaya/veil. I engaged with all employees, spoke to the targeted 
females, and took corrective action to ensure these incidents stopped 
immediately. In both India and Saudi Arabia, I believe that my actions 
resulted in a positive, safe, professional environment that valued and 
respected the uniqueness and differences of individuals.

    Question 2. What are the most pressing human rights issues in 
Lesotho? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Lesotho? What do 
you hope to accomplish through these actions?

    Answer. The most pressing human rights issue in Lesotho is the 
control and conduct of the Lesotho Defense Force, which has been at the 
center of most incidents of political instability in Lesotho for 40 
years. It must be transformed into a professional force fully subject 
to civilian authority if Lesotho is to move beyond recurrent patterns 
of political instability and grow into a more mature democracy. In 
addition, allegations of police abuse are common. Gender-based violence 
is also a major challenge. If confirmed, I would continue to press our 
concerns about these issues, use the full range of public diplomacy 
tools to shine a spotlight on them, and engage the Government of 
Lesotho to address them.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Lesotho in 
advancing human rights, civil society, and democracy in general?

    Answer. Impunity and insufficient civilian control of the security 
sector remain the strongest obstacles and challenges to improving the 
human rights situation in Lesotho. Security sector reform is essential, 
a view endorsed by the Southern African Development Community (SADC) 
Commission of Inquiry, which in 2015 investigated unrest in Lesotho and 
provided specific recommendations. As a regional body to which Lesotho 
belongs, SADC will play a significant role in supporting Lesotho in 
this effort. I look forward to working with the Government of Lesotho 
and with SADC to continue to target U.S. assistance in ways that will 
advance reforms. I will also continue to seek out supportive voices in 
civil society, the business sector, the local diplomatic community, and 
the Government itself. If confirmed as Ambassador, I will work with the 
Government of Lesotho, civil society, and human rights activists to 
increase accountability of those responsible for human rights abuses 
and other illegal acts.

    Question 4. Are you committed to meeting with human rights, civil 
society, and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Lesotho? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. Most definitely, if confirmed as Ambassador, I will place 
importance on meeting with people from the full spectrum of society in 
Lesotho, particularly representatives of civil society and NGOs. If 
confirmed, I commit to meeting with U.S. and local human rights NGOs 
and ensuring that embassy personnel take the necessary steps for all 
security assistance and security cooperation activities to receive 
Leahy and other vetting to reinforce human rights concerns.

    Question 5. Will you and your embassy team actively engage with 
Lesotho to address cases of key political prisoners or persons 
otherwise unjustly targeted by Lesotho?

    Answer. If confirmed, I will ensure my team actively engages with 
the Government of Lesotho to address allegations of abuse or unfair 
treatment. I will ensure that we continue to advocate with the 
Government of Lesotho to respect the rule of law and due process for 
all citizens in Lesotho.

    Question 6. Will you engage with Lesotho on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed as Ambassador, I will engage with Lesotho on 
matters of human rights, civil rights, and governance. Like my 
predecessor, I will continue to engage actively in pressing Lesotho to 
improve respect for human rights and fundamental freedoms, both in 
regular interactions with the most senior government officials, and by 
using the full range of public diplomacy tools and available funding 
for democracy and governance programming.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I might have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I might have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Lesotho?

    Answer. No.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. I am the person I am today because people mentored, helped, 
and gave me opportunities. If confirmed as Ambassador, one of my top 
priorities will be to mentor staff, recruit with an eye toward 
diversity, foster appreciation and respect for differences, and provide 
opportunities for employees' professional and personal growth. The 
support I give will not be limited solely to employees; my support 
would extend to our community as a whole and involve ensuring that 
family members are doing well, are given professional opportunities for 
employment when available, and feel part of the embassy community.
    I will work hard to create an environment that is respectful and 
inclusive of different backgrounds, experiences, ideas, and 
perspectives. This commitment to diversity has been evident throughout 
my career. I have consistently gone out of my way to provide 
opportunities to everyone, encourage individuals from underrepresented 
groups, and promote a culture of trust and inclusion. I will actively 
engage and support relevant State Department organizations that support 
and advocate for employees of various backgrounds.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. If confirmed as Ambassador, I will set an example for those 
under my authority and direct them to maintain inclusive environments 
in their sections and agencies, and will counsel accordingly when I 
learn of problems.

    Question 12. Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. No, there have been no material changes.
Corruption
    Question 13. Lesotho is ranked 83rd of 176 on Transparency 
International's Corruption Index.

   In what sectors is most official corruption found in Lesotho?
   If confirmed, what tools do you have at your disposal to help 
        address corruption and what actions will you take as Ambassador 
        to advocate for improved transparency and good governance with 
        relevant Basotho stakeholders?

    Answer. Corruption impacts multiple sectors in Lesotho; however, it 
is most pervasive in the public sector. This limits the country' 
ability to grow and produce wealth for its people. While the Government 
of Lesotho has shown an intention to combat corruption, steps to date 
have not been adequate. Anti-corruption institutions, principally the 
Directorate on Corruption and Economic Offenses (DCEO), lack adequate 
capacity to address all reported cases of corruption in the country. 
Anti-corruption policies and accountability mechanisms are generally 
weak, and the public's access to information about the Government's 
action is limited. The general public believes the army and the police 
fail to hold officers accountable for various abuses, including 
corruption.
    If confirmed as Ambassador, I would press the Government of Lesotho 
to take concrete steps to reduce corruption and improve transparency 
and good governance. I would work with the Government of Lesotho to 
strengthen its efforts to address corruption through implementation of 
national anti-corruption laws, such as requiring public officials to 
disclose their assets. I would strengthen U.S. efforts to work with the 
Government of Lesotho, as well as with non-governmental organizations, 
to increase transparency and promote good governance to better combat 
corruption and impunity. I would ensure our Embassy provides training 
and exchange opportunities for government and civil society to promote 
transparency and good governance.
Trafficking in Persons
    Question 14. The State Department has ranked Lesotho ``Tier 2'' on 
trafficking in persons.

   If confirmed, what types of U.S. diplomatic efforts and assistance, 
        if any, would you pursue to help Lesotho better tackle this 
        problem?
   In what ways might such efforts be incorporated into existing U.S. 
        programs that aim to help strengthen Lesotho's security sector 
        and the rule of law?

    Answer. In the Department's most recent Trafficking in Persons 
report, Lesotho was listed as a Tier 2 country. This means that the 
Government of Lesotho does not fully meet the minimum standards for the 
elimination of trafficking; however, it is making significant efforts 
to do so by increasing efforts compared to previous years. While 
Lesotho has laws against human trafficking, prosecution and enforcement 
efforts remain uneven. Specifically, prosecutions have been delayed due 
to lack of clarity over court jurisdiction. If confirmed, I will urge 
the Government of Lesotho to continue its efforts to address these 
issues. I would look to raise the public's awareness of human 
trafficking and encourage training of law enforcement and judicial 
officials to investigate and prosecute these crimes.
    We currently have limited military cooperation and security sector 
activities with Lesotho, due to documented human rights concerns 
related to the military. Leahy vetting standards preclude assistance to 
a number of key units in the Lesotho Defense Force. We will be unable 
to resume general assistance to the military until solders implicated 
in human rights abuses are held accountable, and until there is serious 
reform of the security sector.
    We are engaging with the Government of Lesotho on programs that 
provide shelter and assistance for victims of Trafficking in Persons. 
Various local NGOs receive supplemental funding from the Government to 
implement these vital services. The Government of Lesotho has also 
established a multi-sectorial committee that is responsible for liaison 
with the Child and Gender Protection Unit (CGPU). Working together, 
these government entities can continue to improve enforcement of the 
Anti-Trafficking in Persons Act. If confirmed, I would partner with the 
Government and civil society in Lesotho to increase the effectiveness 
of Lesotho's rule of law institutions and push for additional programs 
to help strengthen the country's judicial capacity to investigate and 
prosecute these heinous crimes.
HIV/AIDS
    Question 15. Lesotho is named in the President's Emergency Plan for 
AIDS Relief (PEPFAR) Strategy for Accelerating HIV/AIDS Epidemic 
Control (2017-2020) as one of 13 high-burdened countries prioritized 
for investment during the life of the strategy to achieve the 90-90-90 
targets by 2020, whereby 90 percent of people living with HIV know 
their status, 90 percent of people who know their status are accessing 
treatment, and 90 percent of people on treatment are virally 
suppressed.

   What are the main challenges facing the country in achieving their 
        90-90-90 goal?
   If confirmed, what will you do to support Lesotho and its 
        communities in achieving that goal?

    Answer. In partnership with PEPFAR, Lesotho has made impressive 
progress in fighting HIV/AIDS and is on the path to reaching the 90-90-
90 targets by 2020. Recent figures from Lesotho's Population-based HIV 
Impact Assessment (LePHIA) survey, which were released at the U.N. 
General Assembly in New York, showed that 77 percent of HIV-positive 
Basotho know their status; 90 percent of those who know their status 
are on treatment; and 88 percent of those who are on treatment are 
virally-suppressed.
    Using this data, we know that we need to continue to identify those 
who do not know their status. This means we will need to continue to 
optimize HIV testing and counseling through expanded patient-initiated 
testing and counseling and targeted community testing. The Government 
of Lesotho's decisive move last year to launch a national test and 
treat policy, meaning those who test positive are immediately able to 
start treatment, can be expected to promote further progress in 
controlling the epidemic.If confirmed, I will continue to work in 
partnership with the Government of Lesotho to fight the HIV/AIDS 
epidemic in Lesotho, and build on the success achieved thus far, and 
find ways to maximize efficient use of our resources under PEPFAR.
Security Sector Reform
    Question 16. According to the State Department's 2016 human right 
report, major human rights problems in Lesotho include ``torture and 
cruel, inhuman, or degrading treatment and punishment by LDF members, 
police torture, and societal abuse of women and children.'' The report 
also observed that ``officials who committed abuses, whether in the 
security services or elsewhere in the Government'' were not prosecuted, 
``although the army reportedly surrendered two soldiers implicated in a 
murder without political implications to police. Impunity remained a 
significant problem.''

   How can the United States most effectively help to support security 
        sector reform, particularly regarding military justice and 
        civilian control over the military?
   What is the status of former military chief Tlali Kamoli? And, what 
        is being done to address the murder of his successor, 
        Lieutenant-General Khoantle Motsomotso, in early September 
        2017?

    Answer. The United States has been engaging and should continue to 
engage with the Government of Lesotho to press for security sector 
reform to ensure accountability in the security sector and adherence to 
the rule of law, as the Southern African Development Community's (SADC) 
Commission of Inquiry recommended. The killing of Commander Motsomotso 
further emphasizes the need for security sector reform. The recently 
elected government has taken steps toward full implementation of SADC's 
recommendations and, if confirmed as Ambassador, I would continue to 
urge the Government to take concrete steps to implement SADC's 
recommendations fully. I would continue to reiterate that the United 
States takes this issue seriously and encourage the Government of 
Lesotho to undertake these much-needed reforms in a transparent and 
inclusive manner.
    A national dialogue has recently begun in Lesotho, which includes 
the involvement of the current government, the opposition, and civil 
society organizations, with the intention of developing concrete and 
long-lasting reforms. The United States does not currently provide 
training to Lesotho's army due to Leahy Law concerns. However, the 
Embassy continues to monitor recent government steps to hold army 
officers accountable for past crimes. Such actions could eventually 
allow for the resumption of U.S. training and direct contributions to 
needed security sector reform.
    Former Lesotho Defense Forces (LDF) Commander Kamoli is currently 
in police detention. He is awaiting a bail hearing and is facing 14 
charges of attempted murder related to bombings in January 2014 and one 
charge of murder for the killing of a police official. Two senior 
officers implicated in former LDF Commander Mahao's 2015 murder 
allegedly killed General Motsomotso. Motsomotso's bodyguards 
subsequently killed these suspects in a confrontation. On September 14, 
the police also charged a third soldier in connection with the 
Motsomotso murder.
    Following the killing of Commander Motsomotso, the Government of 
Lesotho requested that SADC deploy troops to Lesotho to support the 
Government as it moves to hold soldiers accountable for wrongdoing and 
in its efforts to undertake security sector reforms. A SADC force is 
expected to arrive in Lesotho in the coming weeks.



                               __________


           Responses to Additional Questions for the Record 
    Submitted to James Randoplph Evans by Senator Benjamin L. Cardin

Human Rights
    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I have always believed that making a difference in one's 
community is a fundamental tool for defending human rights. At the 
beginning of my career, I was active in the Boy Scouts of America, 
serving as Member Chairman (1985-86), District Chairman (1986-1988), 
and receiving the National Quality District Award in 1987 & 1988. I 
have been continuously active in my churches, serving now on the Board 
of the Church of the Apostles. In addition, my wife Linda and I have 
supported financially and in a leadership position, with me serving as 
General Counsel, ``Leading the Way''--a worldwide program that seeks to 
promote greater respect for human rights--including freedom from 
torture, freedom of expression, women's rights, children's rights, and 
the protection of minorities around the globe.
    Recently, through Leading the Way, we personally funded anti-
rejection medicines for a kidney transplant refugee for almost two 
years until he and his family were able to emigrate from northern Iraq 
to Australia. Similarly, in 2004, we facilitated funds and donations in 
Memory of Airman 1st Class Antoine Holt, USAF through the Marine 
Corps--Law Enforcement Foundation to purchase a $20,000 maturity value 
scholastic Patriot Bond for Airman Holt's daughter Carmen. Airman Holt 
was a soldier from our county killed in the Iraq war.
    The Georgia Bar has twice asked me to step in to help with pressing 
issues, including chairing the Suicide Prevention and Awareness 
Committee (2012-2014) and chairing the Task Force for Indigent Services 
(where we developed funding mechanisms for providing free legal 
assistance to the indigent). We also support the Salvation Army, Zoo 
Atlanta, various military related charities, and currently sponsor 
through Children's Hope Chest three children in Uganda--Agnes Asio; 
Benjamin Opolot; and Simon Peter Ebenu. We have previously sponsored 
other children through World Vision.
    The impact of our collective service has been to improve the lives 
of others in our community, our State, and around the world in direct 
and personal ways for them, our country, and our world. From general 
support to personal involvement, we have been committed to and continue 
to promote human rights and democracy with both macro and individual 
impact on the lives of others.

    Question 2. What are the most pressing human rights concerns in 
Luxembourg today? What are the most important steps you expect to 
take--if confirmed--to advance human rights and democracy in 
Luxembourg? What do you hope to accomplish through these actions?

    Answer. The Grand Duchy of Luxembourg enjoys a democratic 
government with free and fair elections, the rule of law, and 
guarantees of basic rights and liberties. According to the 2016 State 
Department Human Rights Report, there were no reports of egregious 
human rights abuses in Luxembourg. In 2016, the United States 
downgraded Luxembourg in its annual Trafficking in Persons (TIP) to 
Tier Two. After the report came out in June 2016, the Government of 
Luxembourg modified its Criminal Code to facilitate the fight against 
TIP and developed a National Action Plan, among other steps. Due to 
these efforts, Luxembourg was upgraded to Tier 1 in the 2017 report. To 
ensure sustained progress in addressing human trafficking, if 
confirmed, I will ensure the Embassy continues to closely monitor 
Luxembourg's anti-trafficking efforts and seek ways for our governments 
to work together and share best practices to continue to make progress 
against trafficking in persons.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Luxembourg in 
advancing human rights, civil society and democracy in general?

    Answer. Luxembourg not only upholds human rights at home, but it is 
a leader in promoting human rights around the world. It is one of the 
most generous countries in the world, devoting more than one percent of 
its gross national income to development aid. In his 2015 speech to the 
U.N. General Assembly, Prime Minister Bettel said that development must 
be human-rights-based, and must include issues of governance, justice, 
peace, security, environmental protection, sustainable consumption and 
production patterns, as well as sustained economic growth. If 
confirmed, I will seek opportunities for the United States and 
Luxembourg to continue to work together to promote and advance human 
rights around the globe.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Luxembourg?

    Answer. The Embassy routinely meets with NGOs in Luxembourg on 
issues from TIP, to religious freedom, to human rights. If confirmed, I 
will ensure that engagement continues. Additionally, I would be open to 
meeting with any NGOs in the U.S. that wished to discuss human rights, 
civil society, or other issues in Luxembourg.

    Question 5. Will you and your embassy team actively engage with 
Luxembourg to address cases of key political prisoners or persons 
otherwise unjustly targeted by Luxembourg?

    Answer. I am not aware of any cases of political prisoners in 
Luxembourg.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will support Embassy Luxembourg's work in 
implementing the provisions outlined in the Leahy Law, which requires 
vetting of security force units including police and military who 
receive assistance from the United States. If there is credible 
information that a security force unit or individual committed gross 
violations of human rights, we will take the necessary steps in 
accordance with the law and Department policy, including working to 
ensure the responsible units and individuals do not receive U.S. 
assistance and assisting their respective governments in bringing them 
to justice.

    Question 7. Will you engage with the people of Luxembourg on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. Yes. I am committed to ensuring our Mission remains engaged 
on these issues. Luxembourg shares our commitment to universal values 
such as human rights, and the Government of Luxembourg holds itself to 
the highest standards with regards to protecting the rights and 
liberties of its people. If confirmed, I will ensure that engagement on 
human rights and good governance remains an integral component of our 
mission.
Diversity
    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        U.S. Embassy in Luxembourg are fostering an environment that is 
        diverse and inclusive?''

    Answer. One of the foundational ideals of this country is the idea 
that all of us are created equal. If confirmed, I will dedicate myself 
to ensuring that each and every member of my team is given the 
opportunities and tools needed to succeed, regardless of race, gender, 
sexual orientation, disability, religion, national origin or age.
    If confirmed, not only will I lead by example, demonstrating my own 
commitment to diversity and inclusiveness, but I will also work with 
the Deputy Chief of Mission and Country Team to ensure that all Embassy 
Luxembourg supervisors uphold equal employment opportunity principles. 
I will also direct our Mission managers responsible for hiring and 
recruitment to ensure that Embassy Luxembourg remains a diverse and 
inclusive workplace where all team members have an equal opportunity to 
achieve success.
Conflicts of Interest
    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Luxembourg?

    Answer. If confirmed, upon taking post, no. Currently, my law firm 
has an office there. If confirmed, upon taking office, I will sever all 
ties with my current law firm.
Voting Rights
    Question 12. Have you ever supported or advanced policies that made 
it more difficult for eligible American citizens to exercise their 
right to vote?

    Answer. On election issues, I have consistently supported early 
voting, no-excuse absentee voting, and provisional ballots. As an 
appointed member of the Georgia State Election Board, I worked with my 
fellow board members whenever possible in a bipartisan way in the 
implementation of the 2006 Georgia law passed that year by the Georgia 
legislature and signed by the Governor requiring state officials to 
issue, free of charge, a photo identification card to any registered 
voter and requiring every voter who casts a ballot in person to produce 
an identification card with a photograph.
    The United States Court of Appeals for the Eleventh Circuit upheld 
the constitutionality of the law when it affirmed the United States 
District Court for the Northern District of Georgia's same 
determination after a trial on the merits finding that any burden 
imposed was not undue or significant. The full opinion by the Eleventh 
Circuit can be found at Common Cause/Georgia v. Billups, 554 F.3d 1340 
(2009). The United States Supreme Court unanimously denied certiorari 
in NAACP v. Billups, 129 S.Ct. 2770, 174 L. Ed. 271 (2009).
    Similarly, the Georgia Supreme Court itself determined that the 
2006 Georgia law was constitutional under Georgia's Constitution in 
Democratic Party of Georgia, Inc. v. Perdue, 288 Ga. 720 (2011) stating 
that: ``the photo ID requirement for in-person voting is authorized by 
Art. II, Sec. I, Par. I [of the Georgia Constitution], as a reasonable 
procedure for verifying that the individual appearing to vote in person 
is actually the same person who registered to vote.'' Id. at 725-26. 
The Court stated: ``As did virtually every other court that considered 
this issue, we find the photo ID requirement as implemented in the 2006 
Act to be a minimal, reasonable, and nondiscriminatory restriction 
which is warranted by the important regulatory interests of preventing 
voter fraud.'' Id. at 730.

    Question 13. In your testimony, you stated that opponents 
challenged Georgia's photo ID law while the State Election Board was in 
the process of mailing ``educational'' letters to approximately 300,000 
voters. However, the 2006 Photo ID Act had been challenged in both 
federal and state court well before the letters were mailed in 
September of 2006. Can you clarify whether or not opponents had 
challenged the law before the Election Board began the process of 
mailing the letters?

    Answer. Multiple election specific challenges were filed to the law 
in 2006. Yet, it was contemplated that Georgia's educational efforts 
would continue. The Georgia Supreme Court in Democratic Party of 
Georgia, Inc. v. Perdue, 288 Ga. 720, 721-22 (2011), described the 
federal injunction and the educational efforts in Common Cause/Georgia 
v. Billups, 439 F. Supp. 2d 1294, 1351 (N.D. Ga. 2006), as follows:

          The district court preliminarily enjoined enforcement of the 
        2006 Act, but limited the injunction to the July 18, 2006 
        primary elections and corresponding primary run-off and 
        declined to extend the injunction to future elections. [Cite 
        omitted.] The court so ruled after finding that efforts to 
        educate voters concerning the statutory photo ID requirements 
        had been insufficient in the time available prior to the 2006 
        primary elections and thus posed an undue burden on certain 
        voters. [Cite omitted.] The district court noted, however:
          In issuing this Order, the Court does not intend to imply 
        that all Photo ID requirements would be invalid or overly 
        burdensome on voters. Certainly, the Court can conceive of ways 
        that the State could impose and implement a Photo ID 
        requirement without running afoul of the requirements of the 
        Constitution. Indeed, if the State allows sufficient time for 
        its education efforts with respect to the 2006 Photo ID Act and 
        if the State undertakes to inform voters of the 2006 Photo ID 
        Act's requirements before future elections, the statute might 
        well survive a challenge for such future.
          Emphasis added.

    Similarly, as noted by the District Court in Common Cause/Georgia, 
there was ``a temporary restraining order issued by the Superior Court 
of Fulton County, Georgia, on July 7, 2006, enjoining the defendants in 
that case from enforcing the 2006 Photo ID Act during the July 18, 
2006, primary election or any resulting run-off election.'' 504 F. 
Supp. 2d at 1340 (citing Lake v. Perdue, Civil Action File No. 
2006CV119207, slip op. at 3-4 (Fulton County Super. Ct. July 7, 2006)).
    Similar actions were taken in connection with the Special Elections 
in 2006. Notwithstanding multiple challenges in multiple jurisdictions 
to specific elections, no injunction existed on the date the State 
Election began acting in accordance with directions from the federal 
court for the State to conduct an education effort as referenced above.
    To comply with the directions regarding educational efforts, all 
members of the State Election Board (including the Democratic Designee 
to the State Election Board and the Secretary of State, a Democrat) 
approved unanimously at the beginning of September 2006 a letter 
explaining to voters how to get a free photo ID. As noted in the 
District Court's timeline in its opinion, these efforts and opponents 
concerns were discussed with the federal court on September 5, 2006. 
See Common Cause/Georgia, 504 F. Supp. 2d at 1340, 1364. But, no 
injunction or other directive to stop the education efforts were 
issued. Id.
    The bottom line was that challenges to specific elections (primary, 
run-off, and special elections) had been made; the injunctions were 
limited to those specific elections; and the federal district court was 
specifically made aware of opponents' concerns and did not enjoin them; 
the federal court eventually determined that the overall educational 
efforts eliminated some of the potential bases for challenging the 2006 
Photo ID law.

    Question 14. The 2006 Photo ID Act was enjoined by a federal court 
on September 14, 2006, and it was declared unconstitutional by a 
Georgia state court on September 19, 2006. According to a filing by 
former Governor Roy Barnes, approximately 80,000 letters were sent on 
September 20, 2006, and approximately 116,000 letters were sent on 
September 25, 2006.

   In your testimony, you stated that ``although many of the letters 
        had already gone out, some of the letters were received after 
        the court's ruling.'' Given the timeline above, approximately 
        200,000 letters were sent, not just received, after the 
        injunction was issued. Can you clarify whether or not letters 
        were sent after the injunction was issued?

    Answer. The actual timeline is as follows. The letter was 
unanimously approved around the first of September, 2006. Opponents of 
the State's educational effort, which included the letter, raised their 
concerns with the federal court on September 5, 2017. In paragraph 32, 
the Court stated:

          On September 5, 2006, the Court held a telephone conference 
        with the parties to address Plaintiffs' concerns with respect 
        to the educational efforts and the application of the 2006 
        Photo ID Act to the September special elections.--Common Cause/
        Georgia, 504 F. Supp. 2d at 1340-41.

    Then, on September 6, 2006, the plaintiffs filed their motion for a 
preliminary injunction as to the September 2006 special elections. The 
Court chronicled this filing in paragraph 33 when the Court stated as 
follows:

          On September 6, 2006, Plaintiffs filed their Motion for 
        Hearing on Plaintiffs' Second Motion for Preliminary Injunction 
        in Advance of the September 2006 special elections.--Common 
        Cause/Georgia, 504 F. Supp. 2d at 1340-41.

    Two paragraphs of the Court's actual order make the point clear. In 
paragraph 33, the Court stated as follows:

          On September 6, 2006, Plaintiffs filed their Motion for 
        Hearing on Plaintiffs' Second Motion for Preliminary Injunction 
        in Advance of the September 2006 special elections.--Common 
        Cause/Georgia, 504 F. Supp. 2d at 1340-41.

    Notably, this was five (5) days after the State Election Board had 
unanimously approved with bipartisan support the September 1, 2006 
letter at issue regarding how to get a free photo ID. It also followed 
the September 5, 2006 telephone conference with the federal court with 
respect to educational efforts.
    Then, on September 14, 2006, the federal court enjoined the 2006 
Photo ID Act, but only with respect to the special elections. No 
injunction was issued notwithstanding Plaintiffs' expressed concerns to 
the Court regarding the State's educational efforts which were in 
process. In paragraph 34, the Court specifically stated as follows:

          On September 14, 2006, the Court held its third preliminary 
        injunction hearing in this case. At the conclusion of the 
        September 14, 2006 hearing, the Court verbally granted 
        Plaintiffs' request for a preliminary injunction with respect 
        to the September 2006 special elections.--Common Cause/Georgia, 
        504 F. Supp. 2d at 1341 (internal citations omitted).

    Hence, the bipartisan educational letter was sent pursuant to the 
federal court's comments urging an educational effort which was 
followed by a telephone conference with the federal court to hear 
opponents' concerns. There was no injunction as to the law generally or 
the general election, and the federal court had been involved regarding 
the educational efforts to hear opponents' concerns.
    The federal court's entire timeline and notations can be found at 
Common Cause/Georgia v. Billups, 504 F. Supp. 1333 (N.D. Ga. 2007). On 
appeal, the Eleventh Circuit described the District Court's position on 
the educational efforts in this way:

          The district court stated that, pending education efforts 
        initiated by the State, the requirement of photo identification 
        might no longer be unduly burdensome in later elections, and it 
        declined to extend the injunction to future elections. The 
        district court also concluded that the organizations and voters 
        did not have a likelihood of success on the merits of their 
        complaint that the statute imposed an unconstitutional poll tax 
        or violated the Civil Rights Act or the Voting Rights Act.--
        Common Cause/ Georgia v. Billups, 554 F.3d 1340, 1347 (11th 
        Cir. 2009).

    Separately, there was a state court action. In Lake v. Perdue, 
Civil Action File No. 2006CV119207, slip op. at 3-4 (Fulton County 
Super. Ct. September 19, 2006), the state court of Fulton Court entered 
an order permanently enjoining the enforcement of the 2006 Act. The 
Georgia Supreme Court eventually vacated that Order and remanded ``with 
the direction that it be dismissed.'' Perdue v. Lake, 282 Ga. 348, 350 
(2007). This procedural history was also summarized by the Georgia 
Supreme Court in Democratic Party of Georgia, Inc. v. Perdue, 288 Ga. 
720, 722 (Ga. 2011).
    The State Election Board then immediately suspended its education 
efforts. Notably, the Eleventh Circuit Court of Appeals stated in its 
opinion the following as it relates to the State's education efforts 
once the injunction in Perdue v. Lake was issued:

          During the pendency of this litigation, a state court 
        permanently enjoined the enforcement of the new statute as 
        violative of the Georgia Constitution. See Perdue v. Lake, 282 
        Ga. 348, 647 S.E. 2d 6 (2007). The Supreme Court of Georgia 
        later vacated the injunction and dismissed the action . . .  
        While the injunction by the state court was extant, Georgia 
        suspended all educational efforts about the requirement of 
        photo identification.--Common Cause/Georgia, 554 F. 3d at 1347. 
        (Emphasis added).

    In fact, upon learning of the state court injunction in the Lake 
matter, I urged and the State Election Board agreed that the State 
would NOT seek a stay of the state court injunction (although the State 
would appeal and the Georgia Supreme Court would vacate the Order and 
remand the case with instructions that it be dismissed); would NOT 
apply the 2006 Photo ID law to the remaining 2006 elections because if 
the State prevailed, the rules ``will have changed midstream''; would 
``suspend all educational efforts about the requirement of photo 
identification''; and would send a second letter making very clear that 
the photo ID would not be required in the upcoming general election. 9/
23/06 AP Alert--GA 07:31:47--Westlaw
    Since I was not involved in the actual administrative process of 
mailing letters approved on September 1, 2006, I was not involved 
enough to know whether the letters in process could have been stopped. 
But, I do know I advised immediately and then led the effort on the 
Board to suspend the application of the 2006 Photo ID law to the 
remaining 2006 elections, to suspend all educational efforts, and to 
insist on a second letter making clear that a photo ID would not be 
required.
    It is why the Eleventh Circuit determined that: ``While the 
injunction by the state court was extant, Georgia suspended all 
educational efforts about the requirement of photo identification.'' 
Common Cause/Georgia, 554 F. 3d at 1347. (Emphasis added). Notably, the 
mailing itself had been approved unanimously by both the Democratic and 
Republican members of the State Election Board, including the 
Democratic Secretary of State well in advance of the injunction.
    It was also consistent with how the State had dealt with 
injunctions as to specific elections before. In Common Cause/Georgia v. 
Billups, 504 F. Supp. 2d 1333, 1340 (N.D. Ga. 2007), paragraph 31, the 
District Court stated as follows:

          After the Court's July 14, 2006 Order, and after the Georgia 
        Supreme Court's refusal to stay the temporary restraining order 
        issued in the Lake case, the State Defendants stopped all of 
        their attempts to educate voters concerning the 2006 Photo ID 
        Act. In early September 2006, the State Election Board voted to 
        resume those educational efforts.

    Question 15. Given the timeline above, couldn't the State Election 
Board have prevented those letters from being mailed?

    Answer. The letters were unanimously approved well in advance of 
the injunction in accordance with directions to the State to engage in 
an education effort and a federal court, having heard opponents' 
concerns, took no action and did not issue an injunction to stop them.
    Additionally, since I was not involved in the administrative 
mechanics of the actual mailing process, I do not know whether it could 
have been halted midstream. I do know that immediately upon learning of 
the injunction, I opposed applying the photo ID in the November 2006 
election, supported suspending all educational efforts (which the 
Courts acknowledged), and supported sending a second letter making 
clear photo IDs would not be required in the upcoming election. It is 
why the federal court determined that the Board suspended all efforts 
once the state court injunction was issued.--Common Cause/Georgia, 554 
F. 3d at 1347.

    Question 16. Could this letter have misled Georgia voters?

    Answer. Not from my perspective. Given the statements, actions, and 
non-application of the 2006 Photo ID requirement in the 2006 elections, 
together with the provisional ballot rule that voters could vote and 
return to address any issues, it is clear that every voter was 
encouraged to vote in the 2006 election. In fact, given the letter's 
unanimous adoption by the Democratic Secretary of State, the Democratic 
appointee to the State Election Board, and the remainder of the Board 
as well as the federal district court's decision not to stop it after 
hearing opponents' concerns, it appeared that the unanimously adopted 
letter as drafted and adopted addressed any valid concerns about it--
whether by Democrats, Republicans, and the federal court.
    Although not specifically addressing the September 2006 letter, in 
footnote 7 of the District Court decision, addressing the State's 
overall educational efforts, the Court in fact rejected the argument 
``that the voter education materials provided by the State were 
misleading or did not provide sufficient information.''--Common Cause/
Georgia, 504 F. Supp. 2d at 1378 n.7.
    Of course, this letter was approved unanimously by both Democrats 
and Republicans on the State Election Board including the Democratic 
Secretary of State and the Democratic Party of Georgia's designee. The 
federal district court heard the concerns but took no action to stop 
the education effort and issued no injunction. No one thought the 
letter was misleading.

    Question 17. Once you learned that the 2006 Photo ID Act had been 
enjoined, what specific steps did you take to prevent the education 
letter from being sent to any additional voters?

    Answer. Immediately, I advised that I would oppose a stay of the 
injunction, I would oppose application of the photo ID law in the 
upcoming election, I would support a second letter to make clear that 
photo IDs would not be required, and I voiced to voters that the 
elections would go forward in accordance with the Court's ruling.



                               __________


           Responses to Additional Questions for the Record 
        Submitted to James Randolph Evans by Senator Cory Booker

    Question 1. Mr. Evans, you served on Georgia's State Election Board 
and while you were a member, it sent 300,000 letters to voters just 
weeks before Election Day that suggested that a photo ID would be 
required to cast a ballot. Approximately 200,000 of those letters were 
sent after a judge struck down a state law requiring a photo ID to 
vote. While the letters were drafted prior to the judge's ruling, those 
letters still went out. It was well known that the law was being 
challenged while the letter was being prepared.
    As someone who is very concerned about voter suppression efforts 
and who has introduced legislation to combat this administration's 
efforts to suppress the vote, this is a concerning incident. For 
decades poor people of color have been discriminated against at the 
ballot box and discriminatory laws, like strict voter ID laws, have 
kept African Americans from voting.

   If this was not an effort to suppress the voter as I am sure you 
        contend, how do you explain this large-scale administrative 
        foul up?

    Answer. In 2006, the Georgia Legislature passed and Governor (now 
Secretary) Perdue signed into law Georgia's second attempt at a voter 
identification law. Once the United States Department of Justice 
cleared Georgia's new voter ID law, the State began to issue free 
identification cards to anyone who wanted or needed one.
    Unlike other similar legislation, this legislation was upheld as 
Constitutional under both the United States Constitution and the 
Georgia Constitution. The United States Court of Appeals for the 
Eleventh Circuit upheld the Constitutionality of the law when it 
affirmed the United States District Court for the Northern District of 
Georgia's same determination after a trial on the merits. The full 
opinion by the Eleventh Circuit can be found at Common Cause/Georgia v. 
Billups, 554 F.3d 1340 (2009). The United States Supreme Court 
unanimously denied certiorari in NAACP v. Billups, 129 S.Ct. 2770, 174 
L. Ed. 271 (2009).
    Similarly, the Georgia Supreme Court itself determined that the 
2006 Georgia law was constitutional under Georgia's Constitution in 
Democratic Party of Georgia, Inc. v. Perdue, 288 Ga. 720 (2011) stating 
that: ``the photo ID requirement for in-person voting is authorized by 
Art. II, Sec. I, Par. I [of the Georgia Constitution], as a reasonable 
procedure for verifying that the individual appearing to vote in person 
is actually the same person who registered to vote.'' Id. at 725-26.
    The Court went on to state: ``As did virtually every other court 
that considered this issue, we find the photo ID requirement as 
implemented in the 2006 Act to be a minimal, reasonable, and 
nondiscriminatory restriction which is warranted by the important 
regulatory interests of preventing voter fraud.'' Id. at 730 with 
emphasis added.
    Prior to the final resolution of the Constitutional issues, 
multiple election specific challenges were filed to the law in 2006. 
For example, the Georgia Supreme Court in Democratic Party of Georgia, 
Inc. v. Perdue, 288 Ga. 720, 721-22 (2011), described the initial 
federal injunction in Common Cause/Georgia v. Billups, 439 F. Supp. 2d 
1294, 1351 (N.D. Ga. 2006), as follows:

          The district court preliminarily enjoined enforcement of the 
        2006 Act, but limited the injunction to the July 18, 2006 
        primary elections and corresponding primary run-off and 
        declined to extend the injunction to future elections. [Cite 
        omitted.] The court so ruled after finding that efforts to 
        educate voters concerning the statutory photo ID requirements 
        had been insufficient in the time available prior to the 2006 
        primary elections and thus posed an undue burden on certain 
        voters. [Cite omitted.] The district court noted, however:
          In issuing this Order, the Court does not intend to imply 
        that all Photo ID requirements would be invalid or overly 
        burdensome on voters. Certainly, the Court can conceive of ways 
        that the State could impose and implement a Photo ID 
        requirement without running afoul of the requirements of the 
        Constitution. Indeed, if the State allows sufficient time for 
        its education efforts with respect to the 2006 Photo ID Act and 
        if the State undertakes to inform voters of the 2006 Photo ID 
        Act's requirements before future elections, the statute might 
        well survive a challenge for such future. Emphasis added.

    Similarly, as noted by the District Court in Common Cause/Georgia, 
there was ``a temporary restraining order issued by the Superior Court 
of Fulton County, Georgia, on July 7, 2006, enjoining the defendants in 
that case from enforcing the 2006 Photo ID Act during the July 18, 
2006, primary election or any resulting run-off election.'' 504 F. 
Supp. 2d at 1340 (citing Lake v. Perdue, Civil Action File No. 
2006CV119207, slip op. at 3-4 (Fulton County Super. Ct. July 7, 2006)) 
with emphasis added.
    Similar legal actions were filed in connection with the Special 
Elections in 2006. Notwithstanding multiple challenges in multiple 
jurisdictions to specific elections, no injunction existed on the date 
the State Election Board began acting in compliance with directions 
from the federal court for the State to conduct an educational effort 
as referenced above.
    Instead, to comply with the directions regarding educational 
efforts, all members of the State Election Board (including the 
Democratic Designee to the State Election Board and the Secretary of 
State, a Democrat) approved unanimously at the beginning of September 
2006 a letter explaining to voters how to get a free photo ID. As noted 
in the District Court's timeline in its opinion, these efforts and 
concerns about them were discussed with the federal court on September 
5, 2006. See Common Cause/Georgia, 504 F. Supp. 2d at 1340, 1364. But, 
the federal court did not enjoin or direct the State to stop the 
educational efforts underway. Id.
    The actual timeline is as follows. The letter was unanimously 
approved around the first of September, 2006. Opponents of the State's 
educational effort, which included the letter, raised their concerns 
with the federal court on September 5, 2017. In paragraph 32, the Court 
stated:

          On September 5, 2006, the Court held a telephone conference 
        with the parties to address Plaintiffs' concerns with respect 
        to the educational efforts and the application of the 2006 
        Photo ID Act to the September special elections.--Common Cause/
        Georgia, 504 F. Supp. 2d at 1340-41.

    Then, on September 6, 2006, the plaintiffs filed their motion for a 
preliminary injunction as to the September 2006 special elections. The 
Court chronicled this filing in paragraph 33 when the Court stated as 
follows:

          On September 6, 2006, Plaintiffs filed their Motion for 
        Hearing on Plaintiffs' Second Motion for Preliminary Injunction 
        in Advance of the September 2006 special elections.--Common 
        Cause/Georgia, 504 F. Supp. 2d at 1340-41.
    Notably, this was five (5) days after the State Election Board had 
unanimously approved with bipartisan support the September 1, 2006 
letter at issue regarding how to get a free photo ID. It also followed 
the September 5, 2006 telephone conference with the federal court with 
respect to concerns regarding educational efforts.
    Then, on September 14, 2006, the federal court enjoined the 2006 
Photo ID Act, but only with respect to the special elections. No 
injunction of the educational efforts including the letter was issued 
notwithstanding opponents' expressed concerns to the Court regarding 
the State's educational efforts which were in process.
    In paragraph 34, the Court specifically stated as follows:

          On September 14, 2006, the Court held its third preliminary 
        injunction hearing in this case. At the conclusion of the 
        September 14, 2006 hearing, the Court verbally granted 
        Plaintiffs' request for a preliminary injunction with respect 
        to the September 2006 special elections.--Common Cause/Georgia, 
        504 F. Supp. 2d at 1341 (internal citations omitted). Again, 
        there was no injunction to the educational effort.

    The bottom line was that challenges to specific elections (primary, 
run-off, and special elections) had been made. The injunctions were 
limited to those specific elections. The federal district court was 
specifically made aware of opponents' concerns, but did not direct that 
they be stopped and did not enjoin the educational efforts including 
the letter. The federal court did eventually determine that the overall 
educational efforts were not misleading and did in fact eliminate some 
of the bases for challenging the law.
    Hence, the process began for mailing the bipartisan unanimously 
approved educational letter--after the federal court's comments urging 
an educational effort and after a telephone conference with the federal 
court about concerns with the educational efforts. There was no 
injunction as to the law generally or the general election, and the 
federal court had been involved regarding the educational efforts prior 
to the injunction. The federal court's entire timeline and notations 
can be found at Common Cause/Georgia v. Billups, 504 F. Supp. 1333 
(N.D. Ga. 2007).
    On appeal, the Eleventh Circuit described the District Court's 
position on the educational efforts in this way:

          The district court stated that, pending education efforts 
        initiated by the State, the requirement of photo identification 
        might no longer be unduly burdensome in later elections, and it 
        declined to extend the injunction to future elections. The 
        district court also concluded that the organizations and voters 
        did not have a likelihood of success on the merits of their 
        complaint that the statute imposed an unconstitutional poll tax 
        or violated the Civil Rights Act or the Voting Rights Act.--
        Common Cause/ Georgia v. Billups, 554 F.3d 1340, 1347 (11th 
        Cir. 2009).

    Separately, there was a state court action. In Lake v. Perdue, 
Civil Action File No. 2006CV119207, slip op. at 3-4 (Fulton County 
Super. Ct. September 19, 2006), the state court of Fulton County 
entered an order permanently enjoining the enforcement of the 2006 Act. 
The Georgia Supreme Court eventually vacated that Order and remanded 
``with the direction that it be dismissed.'' Perdue v. Lake, 282 Ga. 
348, 350 (2007). This procedural history was also summarized by the 
Georgia Supreme Court in Democratic Party of Georgia, Inc. v. Perdue, 
288 Ga. 720, 722 (Ga. 2011).
    Notably, as to the actions of the State Election Board upon the 
issuance of the state court injunction, the Eleventh Circuit Court of 
Appeals stated as follows:

          During the pendency of this litigation, a state court 
        permanently enjoined the enforcement of the new statute as 
        violative of the Georgia Constitution. See Perdue v. Lake, 282 
        Ga. 348, 647 S.E. 2d 6 (2007). The Supreme Court of Georgia 
        later vacated the injunction and dismissed the action . . .  
        While the injunction by the state court was extant, Georgia 
        suspended all educational efforts about the requirement of 
        photo identification.--Common Cause/Georgia, 554 F. 3d at 1347.

    In fact, upon learning of the state court injunction in the Lake 
matter, I urged and the State Election Board agreed that the State 
would NOT seek a stay of the state court injunction (although the State 
did appeal and the injunction was vacated and the action ordered 
dismissed) . The State would NOT apply the 2006 Photo ID law to the 
2006 general election because if the State pursued a stay and 
prevailed, the rules ``will have changed midstream.'' The State would 
``suspend all educational efforts about the requirement of photo 
identification.'' And, the State would send a second letter making 
clear that the photo ID would not be required in the upcoming general 
election. 9/23/06 AP Alert--GA 07:31:47--Westlaw.
    Since I was not involved in the actual administrative process of 
mailing letters approved around September 1, 2006, I was not involved 
enough to know whether the mailing in progress could have been stopped. 
But, I do know the Board immediately suspended the application of the 
2006 Photo ID law to the remaining 2006 elections, suspended all 
educational efforts, and took additional actions to make sure voters 
were accurately informed including sending a second letter making clear 
that a photo ID would not be required for the 2006 elections.
    It is why the Eleventh Circuit determined that: ``While the 
injunction by the state court was extant, Georgia suspended all 
educational efforts about the requirement of photo identification.'' It 
was also consistent with how the State had dealt with injunctions as to 
specific elections before. In Common Cause/Georgia v. Billups, 504 F. 
Supp. 2d 1333, 1340 (N.D. Ga. 2007), paragraph 31, the District Court 
stated as follows:

          After the Court's July 14, 2006 Order, and after the Georgia 
        Supreme Court's refusal to stay the temporary restraining order 
        issued in the Lake case, the State Defendants stopped all of 
        their attempts to educate voters concerning the 2006 Photo ID 
        Act. In early September 2006, the State Election Board voted to 
        resume those educational efforts.

    As it turned out, there were no specific allegations of any voter 
being misled either by the letter or the educational effort. In fact, 
in addressing the overall education effort, in footnote 7 of the 
District Court decision, addressing the State's overall educational 
efforts, the Court rejected the argument ``that the voter education 
materials provided by the State were misleading or did not provide 
sufficient information.'' Common Cause/Georgia v. Billups, 504 F. Supp. 
2d at 1378 n.7.

    Question 2. The United States is a beacon of democracy for so many 
nations around the globe and you are about to represent this country in 
Luxembourg.

   If asked about President Trump's so-called Election Integrity 
        Commission by government officials in Luxembourg and 
        President's Trump's claims that millions of people voted 
        illegally in the United States, what would you say?

    Answer. Until any report is issued, I will note that the claims are 
the subject of various investigations including the Election Integrity 
Commission. Upon the issuance of a report, I will defer to the report 
as well as any related government materials that may be generated by 
the Congress, states, or other government entities investigating the 
claims.



                               __________



                              NOMINATIONS

                              ----------                              5


                       TUESDAY, NOVEMBER 28, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio 
presiding.
    Present: Senators Rubio [presiding], Flake, Gardner, Young, 
Isakson, Cardin, Menendez, Shaheen, Murphy, Markey, and 
Merkley.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Foreign Relations Committee will come to 
order. This is a full committee hearing on the nominations of 
Dr. Christopher Ashley Ford to be the Assistant Secretary of 
State for International Security and Nonproliferation, and Dr. 
Yleem Poblete to be Assistant Secretary of State for 
Verification and Compliance.
    I thank both of you for being here today and for your 
willingness to serve our country.
    Ranking Member, with your permission, because I know both 
Senator Boozman and Congresswoman Ros-Lehtinen are scheduled, I 
was going to let them give their introductions before I gave 
mine.
    Senator Cardin. Absolutely. I am looking forward to hearing 
from our colleagues. So absolutely.
    Senator Rubio. And both because of how far she had to 
travel here across the Capitol to come over and her years of 
service to our country, if it is okay, Senator, I was going to 
give the Congresswoman the opportunity open with her remarks, 
and then I will recognize you.
    Senator Shaheen. And she is from Florida. [Laughter.]
    Senator Rubio. Yes, the Florida part. Actually, as I 
proudly tell people, I was an intern for her in 1991, so not 
that long ago.
    Ms. Ros-Lehtinen. We still have high hopes for you, 
Senator. [Laughter.]
    Senator Rubio. I will get there one day. But anyway, I 
mean, for your high hopes. I do not want anyone to read into 
that. The commissioner job of the NFL has been taken for now, 
so, anyway, I appreciate you being here. Thank you for being 
with the committee.

            STATEMENT OF HON. ILEANA ROS-LEHTINEN, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Ms. Ros-Lehtinen. Thank you very much, Chairman Rubio, 
Ranking Member Cardin, Senators.
    And thank you, Senator Boozman, for letting me go first. 
That is very nice of you.
    Today, I have the distinct honor and privilege to introduce 
to the committee Dr. Yleem Poblete, originally from Florida, 
now of Virginia, to the Senate Foreign Relations Committee.
    I have known Yleem since she was a precocious 8-year-old, 
volunteering on my first campaign for the Florida statehouse. 
It was clear then, as it is now, that public service was her 
true calling.
    I can attest and promise to this committee, and to the 
entire Senate, that Yleem is a nominee who will make us all 
proud, that she will fulfill the duties and obligations of her 
office faithfully and vigilantly.
    She has more than 2 decades' worth of experience on issues 
directly related to this position to which she has been 
nominated. Yleem has navigated, executed, and led the 
legislative agenda on a wide array of foreign affairs and 
national security matters for the House of Representatives.
    During her time working for me and on the Committee on 
Foreign Affairs, she worked in a bipartisan manner to advance 
U.S. foreign policy interests in virtually every region of the 
world.
    So it is quite fitting that Yleem as President Trump's 
nominee for the position of Assistant Secretary of State, 
Verification and Compliance, at the Department of State, would 
be before you today, at a time when verification and compliance 
are critical to U.S. national security interests. Whether for 
the Intermediate-Range Nuclear Forces Treaty, the INF Treaty; 
Syrian chemical weapons use; or to prevent a nuclear-armed 
Iran, our Nation will be well-served to have Dr. Yleem Poblete 
as one of the first lines of defense.
    She has dedicated her professional life to holding rogue 
regimes and violator's feet to the fire. My dear colleagues, 
many of you can attest to this, having worked with her 
throughout the years, and I know that Senator Menendez and Mr. 
Rubio, you have worked with her directly.
    And thanks to her diligence and acumen, multiple bills 
targeting some of the most complex and dangerous proliferation 
threats in Iran, in Syria, in North Korea, in Russia, and 
elsewhere, have become law.
    I can go on and on about the totality of Yleem's 
professional achievements, because there are so many. But 
instead, I will just conclude with a note about her personal 
character and integrity.
    As a young Hispanic woman working on national security 
interests and all issues related to the welfare of our Nation, 
Yleem has rightfully earned credibility and respect in her area 
of expertise and from her peers, despite the odds.
    And all along the way, she has made it one of her primary 
missions to help so many others achieve their own goals. She 
has been a mentor and a role model for so many staffers. Yleem 
has encouraged them to achieve not only their educational 
goals, but to surpass their potential. And I know there are 
countless who are grateful for the care, for the support, and 
for the guidance that Yleem has given to them over the years. 
In the 20-years-plus of working for me, whenever I needed 
Yleem, she was there, and I shall forever be grateful for that. 
But she was there also for so many others.
    And now I believe that our Nation needs her more than ever, 
and I know that she is proud to answer that call. Her 
commitment to public service is admirable, and her dedication 
to protecting the United States and our national security 
interests makes Yleem the ideal nominee for this position.
    Yleem is accompanied this morning by her supportive 
husband, Jason Poblete, and watching the proceedings from Miami 
are her father, Octavio; her mother, Miriam; her sister, 
Giselle; her brother, Jonathan.
    I fully support her nomination. And with that, I am honored 
to introduce Dr. Yleem Poblete.
    Thank you, Mr. Chairman, and Ranking Member.
    Senator Rubio. Thank you. And thanks so much for being 
here. We appreciate that very much.
    Senator Boozman, we recognize you to present Dr. Ford.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Chairman Rubio and Ranking 
Member Cardin, for the honor of being here to introduce Dr. 
Yleem Poblete, the President's nominee for Assistant Secretary 
of State for Verification and Compliance. I have known and 
worked with Yleem for over 15 years and enthusiastically 
support her confirmation to this important position.
    I first got to know Yleem as a member of the House Foreign 
Affairs Committee. I was always impressed by her hard work, 
dedication to public service, ability to quickly synthesize 
difficult issues, and her singular focus on developing 
solutions, rather than identifying problems, which is so 
important.
    She is a consummate professional who is able to skillfully 
navigate competing priorities to advance U.S. national security 
interests and priorities. Her past successful efforts on bills 
targeting Iran, Syria, and North Korea are a testament, among a 
number of other things, but they are a testament to her skills 
and her determination.
    In conclusion, Yleem's policy expertise and political 
acumen will serve the State Department and our country very, 
very well, and I wholeheartedly support her confirmation.
    Senator Rubio. I thank you for being here as well. And I 
misspoke. I apologize. I said you were representing Dr. Ford. 
But I appreciate two presentations, and thank you both for 
being here and for your time today.
    And with that, I will move into my opening statements on 
nomination, and then we will proceed from there.
    Senator Cardin. But our two colleagues are free to leave, 
if they have other things to do.
    Senator Rubio. No, actually, we want you to stay and watch 
the whole thing, but it is on television now, so you can--
[Laughter.]
    Senator Boozman. I am on the Budget Committee, so----
    Senator Rubio. Oh, you should go. Yes.
    Senator Boozman [continuing]. I have to run.
    Senator Rubio. You need to be there. But thank you again, 
both, for being here.
    So if confirmed, the two of you will help the United States 
to craft and improve policies seeking to prevent the 
international spread of nuclear weapons, chemical weapons, 
biological weapons, and other deadly and destructive 
technologies, and to verify the full compliance of countries 
that have entered into bilateral or multilateral agreements 
with the U.S. related to nonproliferation and arms control.
    While most countries comply with the 1968 nuclear Non-
Proliferation Treaty and other key multilateral agreements 
aimed at restraining nuclear proliferation, there are certain 
bad actors that are posing severe challenges to the 
international order.
    In North Korea, the Kim regime poses direct threats with 
its nuclear warheads, ballistic missiles, and conventional 
military against its neighbors, including South Korea and 
Japan, as well as against American military forces that are 
forward-deployed in the Indo-Pacific. North Korea, which has a 
long history of cooperating with Iran on missiles, is also 
trying to build ICBMs capable of delivering nuclear warheads to 
American soil.
    We should also not forget that North Korea used the nuclear 
Non-Proliferation Treaty, which, by the way, it left in 2003, 
as well as President Clinton's 1994 agreed framework as cover 
to gain years to overtly and covertly acquire the capabilities 
to build nuclear weapons.
    In the Middle East, the Iranian regime's nuclear ambitions 
and growing missile arsenal pose long-term threats to its 
neighbors, which include Saudi Arabia and other gulf nations, 
as well as to American military forces forward-deployed in the 
region, not to mention, of course, the State of Israel.
    While the Obama administration was hopeful that its 
controversial nuclear deal with Iran would lead to restraint 
and moderation in the Iranian regime's behavior, the opposite, 
clearly, is happening.
    While the regime has a long-term path to getting nuclear 
weapons, especially when the Iran nuclear deal's key 
limitations expire in little more than a decade, they are 
aggressively expanding their missile capabilities in the near 
term. The regime has also used the financial windfall from this 
flawed deal to increase its support for terrorist organizations 
such as Hezbollah, for sectarian militancy throughout the 
region, and even for the Assad barbaric dictatorship in Syria.
    In light of the controversial nuclear deal with Iran, one 
of my biggest concerns is that other Middle Eastern nations may 
seek to enter into a race to develop civil nuclear programs, 
but with also having breakout capability.
    In the Europe-Eurasian region, Russia and Vladimir Putin 
continue to violate the 1987 Intermediate-Range Nuclear Forces 
Treaty, and to deny some of America's overflight requests under 
the Open Skies Treaty. This, of course, raises serious 
questions about the future viability of arms control between 
the United States and Putin's Russia.
    I should add that, in Syria, the Assad regime, which is now 
backed by Putin and the Iranian regime, has repeatedly used 
chemical weapons against its own people. The 2013 Obama-Putin 
agreement clearly failed to verifiably eliminate all chemical 
weapons in Syria.
    These are just some of the many serious challenges that the 
international spread of nuclear weapons and other deadly and 
destructive technologies pose to the United States and to our 
allies.
    Dr. Ford and Dr. Poblete, I look forward to hearing your 
views on these issues and other issues today, because if you 
are confirmed, I cannot stress how important your positions in 
the State Department will be in helping our Nation's leaders 
chart the right path toward stopping these threats.
    With that, I now recognize the ranking member.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Senator Rubio, first of all, thank 
you for conducting this hearing and chairing this hearing.
    I want to welcome both of our nominees, Ms. Poblete and Dr. 
Ford. Both of you, we thank you for your willingness to serve 
our country. And increasingly, these are very important 
positions.
    I also want to acknowledge your past work here in Congress.
    Dr. Ford, I personally enjoyed our relationship with 
Senator Corker and the Senate Foreign Relations Committee, and 
your critically important work on behalf of our committee.
    Ms. Poblete, your work on the House Foreign Affairs 
Committee, we appreciate that. And that is a plus. We want you 
to know that. We appreciate people who have experience here on 
Capitol Hill.
    I also want to acknowledge your families that are here 
today, your spouses, and your daughter that is here, Dr. Ford. 
It is impressive to see the family support, because we know it 
is going be a family sacrifice, the work that you are going to 
be doing.
    As I have indicated, these positions are critically 
important to our national security. They deal with arms control 
and nonproliferation, vital arms control treaties that we have 
with Russia. The chairman has mentioned the INF Treaty, which 
is, obviously, one of our most important bilateral treaty 
obligations dealing with arms control and nonproliferation, and 
the New START treaty, which is in its early stages, but a very 
important treaty, and its long-term implications, we would be 
interested in hearing today. Multilateral treaties and 
agreements, including the Nuclear Nonproliferation Treaty and 
the Chemical Weapons Convention, are also very much on our 
minds today and have been in the headlines.
    The AVC Bureau produces an annual report, which we look to 
every year to see the compliance of our treaty partners and the 
obligations that they have entered into. And the ISN deals with 
preventing proliferation. And as the chairman pointed out, we 
have major issues today in North Korea and Iran that we would 
welcome your views on.
    And, Dr. Ford, as we both learned recently, you also, if 
confirmed, will have the responsibility in regard to carrying 
out certain sanction programs, including that with Russia, 
particularly military aspects to that. So we look forward to 
learning more about your views on these important subjects.
    I am going to highlight four areas of concern that I hope 
we can get into during today's nomination hearing.
    The first issue that requires immediate attention is the 
INF Treaty. Since 2014, the State Department, in its annual 
compliance report, has determined that Russia is in violation 
of its INF obligations to refrain from building ground-based 
missiles with ranges between 500 and 5,500 kilometers. Russia 
has continued to deny it has developed a ground-based cruise 
missile and has, in turn, with no evidence, accused the United 
States of violating the treaty.
    I have advocated an approach to Russia's INF violations 
that emphasizes defensive measures to protect ourselves and our 
allies from Russia's aggression, but does so in a manner that 
maintains the rule-based order that bolsters European and 
American security. I want to hear from our witnesses today how 
they believe the United States should be constructively 
approaching Russia's INF violations.
    The second issue deals with New START. By February 2018, 
the United States and Russia must reduce their strategic 
nuclear forces to a level agreed to by that treaty. Assuming 
Russia meets these obligations, and the size of Russia's forces 
are verified through the U.S. onsite inspections, the United 
States must decide whether it wants to extend the treaty for 
another 5 years until 2026. The United States could decide to 
negotiate a new treaty or end all legal binding nuclear arms 
control limitations with Russia.
    I am eager to hear our witness's views on how the United 
States should move forward on this critical issue, given the 
heightened tension between the United States and Russia.
    The third issue is one, probably, that this committee has 
spent more time on than any other single issue, and that is the 
Joint Comprehensive Plan of Action, the JCPOA, with Iran. In 
October, President Trump did not make the every-90-day 
compliance certification outlined in the INARA act. The 
President indicated he wanted to work with Congress and our 
allies to address the JCPOA flaws, but, ``In the event we are 
not able to reach solution working with Congress and our 
allies, then the agreement will be terminated.'' I find the 
President's approach extremely troubling and puzzling.
    Dr. Ford, as the current senior director of WMD at NSC, I 
assume you were deeply involved in the administration's view of 
Iran policies. I hope you can shed some light on the 
administration's thinking on the future of the JCPOA.
    Finally, the Senate Foreign Relations Committee reviews and 
provides oversight on all civilian nuclear cooperation 
agreements, often referred to as 123 agreements, with other 
countries. We have heard credible reports that the Trump 
administration is considering entering into civilian nuclear 
cooperation with Saudi Arabia. In 2009, the United States 
negotiated a 123 agreement with the UAE, legally renounced its 
enrichment and reprocessing technologies and capabilities. This 
was the so-called gold standard.
    It is important for this committee to know whether the 
United States is negotiating a nuclear cooperation with Saudi 
Arabia, and whether it will insist on the same nonproliferation 
standards that were included in the UAE agreement.
    So, Mr. Chairman, you see that we have two individuals who 
are willing to step forward on very important responsibilities 
for this country, but there are many questions that we are 
going to want to ask.
    Thank you.
    Senator Rubio. Thank you to the ranking member.
    To both nominees, your opening statements are in the 
record. I provide you the option of going straight to 
questions, but you are more than welcome to sort of provide 
them now. I would just encourage you, to the extent you can, to 
limit them to the time allotted, so that we can get to 
questions. I know that we have a lot of members coming in and 
out that do want to engage with you on some important matters.
    And so with that, Dr. Poblete, we can start with you.

 STATEMENT OF YLEEM D.S. POBLETE, PH.D., OF VIRGINIA, TO BE AN 
  ASSISTANT SECRETARY OF STATE FOR VERIFICATION AND COMPLIANCE

    Dr. Poblete. Thank you, Senator. Mr. Chairman, Ranking 
Member, members of this committee, it is an honor and a 
privilege to be here with you today. I am truly humbled by the 
trust President Trump and Secretary Tillerson have placed in me 
via this nomination. And I wish to thank Vice President Pence 
for his support, and Senator Boozman, former Congressman Howard 
Berman, and Congresswoman Ileana Ros-Lehtinen for having taken 
the time to be here today or to weigh in on my behalf.
    Congresswoman Ros-Lehtinen, Ilie, is more than a former 
boss. She is a friend. She was the key that opened the door to 
my almost two decades of public service on the House Foreign 
Affairs Committee, a trajectory which enabled me to undertake 
new regional or functional portfolios every few years and, as 
such, helped me develop a greater appreciation for the 
experiences of State Department personnel.
    I rose through the ranks to become staff director and chief 
of staff, and worked with some extraordinary individuals, many 
of whom are in the audience here today or working on this side 
of the Capitol, some sitting here on the dais or behind the 
dais.
    My committee experience enabled me to work on the threats 
posed by radiological weapons and the role of the International 
Atomic Energy Agency in securing these materials; to work on 
nuclear cooperation agreements, such as the 123 agreement with 
the UAE; to exercise oversight of U.S. statutes and of 
compliance by foreign countries with their obligations and 
commitments under bilateral and international agreements or 
commitments; to develop policy responses to counter threats 
from rogue regimes seeking nuclear, chemical, biological 
weapons capabilities or destabilizing numbers of advanced 
conventional weapons; and to secure support for the U.S. agenda 
and priorities in international fora.
    None of this, however, would have been possible were it not 
for the Lord's protection and for my family. Words fail me in 
appropriately thanking my parents and grandparents for their 
many sacrifices, in thanking my siblings and my husband, Jason, 
for their unconditional love and support.
    I grew up in a family who experienced, firsthand, the evils 
of communism. When my mother arrived in the United States from 
Cuba, she knelt and literally kissed the ground. Gratitude and 
respect for this great Nation prompted my father, a young 
refugee, to serve in the U.S. Army.
    My family, throughout, instilled in me the firm belief that 
this Nation is the last best hope of man on Earth, that there 
are actors who seek to do her harm. And I feel privileged to 
have the opportunity, if confirmed, to contribute to keeping 
her safe through the rigorous verification and enforcement of 
arms control, nonproliferation, and disarmament agreements or 
commitments.
    I am fully aware and appreciate that this mandate comes 
from you, the Congress, when establishing the position for 
which I have been nominated. Turning to the committee report 
for guidance, it said: The Assistant Secretary will have 
overall oversight of policy and resources for verification and 
compliance regarding not only various treaties but also 
executive agreements and commitments, including those falling 
within the purview of regional bureaus when such agreements or 
commitments pertain to arms control, nonproliferation, or 
disarmament.
    I recognize the Congress sought to ensure the verification 
and compliance mechanisms would be integrated into these 
agreements from their inception and be rigorously enforced.
    In that vein, Senators, I commit to you today that, if 
confirmed, I will dutifully fulfill this mandate and pursue 
effective verification, seeking to detect violations well 
before they become a threat to our national security and 
interests, and before options to address these and to correct 
or counter the situation are limited.
    Effective verification must also include detection, 
documentation, and accountability for patterns of marginal 
violations or noncompliance. Violations must be appropriately 
and effectively addressed. Maximizing the expertise of the 
bureau, of the Department of State, of our intelligence and 
resources from across the U.S. Government and from partner 
nations will be a priority, as will identifying, applying, 
spurring, and maximizing new technologies in order to address 
today's security needs while preparing for the challenges of 
tomorrow.
    To conclude, Chairman Rubio, Ranking Member Cardin, members 
of this committee, let me close by again thanking you for the 
privilege to appear before you today. I consider this 
appointment, if confirmed, to be the highest honor and solemn 
responsibility to undertake, and I relish the opportunity to 
serve our Nation. And once again, I am humbled by the trust and 
confidence of the President and the Secretary of State via this 
nomination.
    Thank you.
    [Dr. Poblete's prepared statement follows:]


              Prepared Statement of Dr. Yleem D.S. Poblete

    Mr. Chairman, Mr. Ranking Member, members of the committee. It is 
an honor and privilege to be here today.I am humbled by the trust 
President Trump and Secretary Tillerson have placed in me via this 
nomination and for the opportunity, if confirmed, to join public 
servants at the Department of State and throughout the administration 
in advancing U.S. national security and interests.
    I wish to thank Vice President Pence for his support; Senator 
Boozman, former Congressman Howard Berman and Congresswoman Ileana Ros-
Lehtinen for taking the time to be here today or to weigh in on my 
behalf. Congresswoman Ros-Lehtinen is more than a former boss. She is a 
friend. She was the key that opened the door to my almost two decades 
of public service on the House Committee on Foreign Affairs--a 
trajectory which enabled me to undertake new regional or functional 
portfolios every two to four years and, as such, helped me develop a 
greater appreciation for the experiences of Foreign Service, Civil 
Service, and other State Department personnel.
    I rose through the ranks to become Staff Director and Chief of 
Staff and worked with some extraordinary individuals, many of whom are 
now on this side of the Capitol. My committee experience enabled me:

   to work on the threat posed by radiological weapons and the role of 
        the International Atomic Energy Agency in securing these 
        materials;
   to work on nuclear cooperation agreements;
   to exercise oversight of U.S. statutes and of compliance by foreign 
        countries with their obligations and commitments under existing 
        bilateral and international agreements.
   to develop policy responses to counter threats from rogue regimes 
        seeking nuclear, chemical, and biological weapons capabilities, 
        and/or destabilizing numbers of advanced conventional weapons; 
        and
   to secure support for the U.S. agenda and priorities in 
        international fora.

    None of this, however, would have been possible were it not for the 
Lord's protection and for my family. Words fail me in appropriately 
thanking my parents and grandparents for their many sacrifices; in 
thanking my siblings and my husband, Jason, for their unconditional 
love and support.
    I grew up in a family who experienced first-hand the evils of 
Communism--persecution, intimidation, arbitrary arrest and detention, 
friends and relatives killed before them. When my mother arrived in the 
United States as a teenager via the Peter Pan flights from Cuba, she 
knelt and literally kissed the ground--the soil of liberty.
    Gratitude and respect for this great nation prompted my father, a 
young refugee, to serve in the U.S. Army.
    My family instilled in me the firm belief that: ``this nation is 
the last best hope of man on Earth''; that there are actors who seek to 
do her harm, and I feel privileged to have the opportunity, if 
confirmed, to contribute to keeping her safe through the rigorous 
verification and enforcement of arms control, nonproliferation, and 
disarmament agreements or commitments.
    I am fully aware and appreciate that this mandate comes from you, 
the Congress, when establishing the position for which I have been 
nominated. Turning to the committee report for guidance, it said: the 
Assistant Secretary will have ``overall oversight of policy and 
resources for verification and compliance regarding not only various 
treaties, but also executive agreements and commitments, including 
those falling within the purview of regional bureaus when such 
agreements or commitments pertain to arms control, nonproliferation, or 
disarmament.''
    I recognize that by combining these components in a single bureau 
under one assistant secretary, the Congress sought to ensure that 
verification and compliance mechanisms would reflect the challenges and 
concerns of policymakers, would be integrated into the agreements from 
their inception, and would be rigorously enforced.
    In that vein, I commit to you today that, if confirmed, I will 
dutifully fulfill this mandate and pursue ``effective verification''--
seeking to detect violations well before they become a threat to our 
national security and interests and before options to address, correct 
or counter the situation are limited. Effective verification must also 
include detection, documentation, and accountability for ``patterns of 
marginal violations'' or non-compliance.
    Violations must be appropriately and effectively addressed. Failure 
to do so, as stated in the 2017 Compliance Report produced by the 
Bureau I have been nominated to lead, can ``perpetuate and compound the 
dangers [to U.S. and allies' security].''
    Maximizing the expertise of the Bureau, of the Department of State, 
of intelligence and resources from across the U.S. government and 
partner nations will be a priority, as will identifying and applying 
new technologies to correct deficiencies which may exist, in order to 
address today's security needs while preparing for the challenges of 
tomorrow.
    Mr. Chairman, Mr. Ranking Member, members of the committee, let me 
close by, again, thanking you for the privilege to appear before you 
today. I consider this appointment, if confirmed, to be the highest 
honor and solemn responsibility to undertake. I relish the opportunity 
to serve our nation and am humbled by the trust and confidence that the 
President and Secretary of State have placed in me via this nomination 
for Assistant Secretary for Verification and Compliance.
    Senator Rubio. Thank you.
    Dr. Ford?

STATEMENT OF CHRISTOPHER ASHLEY FORD, D.PHIL., OF MARYLAND, TO 
 BE AN ASSISTANT SECRETARY OF STATE FOR INTERNATIONAL SECURITY 
                     AND NON-PROLIFERATION

    Dr. Ford. Thank you, Mr. Chairman, Ranking Member Cardin, 
and members of the committee. It is an honor to appear before 
you today as President Trump's nominee to be Assistant 
Secretary of State for International Security and 
Nonproliferation.
    I want to thank the President for his confidence in me and 
for the opportunity, with your approval, of course, to help 
meet the formidable challenges in protecting the American 
people and preserving and advancing the national interests of 
our great Republic in the face of ongoing challenges from the 
proliferation of weapons of mass destruction, delivery systems, 
advanced conventional weapons, and associated materials and 
technologies.
    I would also like to thank Secretary of State Rex Tillerson 
for his support for my nomination.
    But I also would like to take moment to thank my family, my 
wife, Schuyler, and my daughter, Stella-Grace, for their love 
and for their support.
    Almost all of my professional career has been spent in 
government or near it in the public policy community, and I 
think my record demonstrates an unstinting commitment to public 
service. But nevertheless, it is they, my wife and my daughter, 
who are really the sun around which my planet revolves. I owe 
them a tremendous debt of gratitude for all of their patience, 
their kindness, and their support, especially in the months 
since I joined the National Security Council staff last 
January, as you might imagine. And I am pleased beyond words 
that they are able to join me here today.
    So, Schuyler and Stella-Grace, I love you, and I thank you 
with all of my heart.
    I have been, Mr. Chairman, privileged to serve in many 
positions of responsibility and trust in national security 
affairs over more than 2 decades, as, indeed, it was always my 
dream to be when I was studying many years ago as an 
undergraduate at Harvard, getting my doctorate at Oxford as a 
Rhodes Scholar, and getting my law degree at Yale.
    I have served as an intelligence officer in the U.S. Navy 
Reserve, as a Principal Deputy Assistant Secretary of State at 
what was then the Verification and Compliance Bureau, and as 
the U.S. Government's Special Representative for Nuclear 
Nonproliferation.
    In addition to that, I have worked for five different 
Senators on six different committee staffs here in the Senate, 
including at this very committee.
    It has been my particular honor to serve the American 
people over the last 11 months on the National Security Council 
staff where I presently run the Weapons of Mass Destruction and 
Counterproliferation Directorate and serve as a special 
assistant to the President.
    My experience with nonproliferation and related issues goes 
back many years now, but it is probably my time at the NSC that 
has best prepared me for the honor of serving, if confirmed, as 
the Assistant Secretary for International Security and 
Nonproliferation.
    I am proud of the role that I have played in helping this 
new administration find its footing in this arena and begin to 
build out a farsighted and resolute approach to the many 
challenges that we face.
    Mr. Chairman, although I have never been able to imagine 
not being deeply involved in working on U.S. public policy and 
national security issues, the WMD business is not one in which 
I originally expected to be. My doctoral dissertation, after 
all, was on international relations theory and African regional 
relations. When I practiced law, I worked on large toxic tort 
class action litigation cases, and I spent years on different 
congressional staffs doing investigations.
    My Senate career has included doing intelligence oversight 
work in the years just after 9/11 and during the global war on 
terrorism, working on appropriations legislation round about 
2013 in the time of the government shutdown at the time, and 
has included a broad range of legislative work for this very 
committee.
    I have also, at various points, helped an international war 
crimes tribunal get itself established in West Africa, produced 
intelligence analysis as a naval officer, clerked briefly for a 
Federal appellate judge, and helped with research on elephant 
physiology, of all things, while living in a tent in a game 
park in Kenya. I have trained at a Zen center in the Sangre de 
Cristo Mountains. I have taught Japanese jujitsu at a dojo here 
in Washington. And I have written books on naval history and 
Sino-American relations.
    But I have been drawn, especially, to the field of weapons 
of mass destruction, because of its combination of intellectual 
challenge and technical complexity, and because of its obvious 
criticality, not just to the preservation of U.S. national 
security, but also of international peace and security, and, 
indeed, potentially, of civilization itself. This admixture of 
challenge and criticality and urgency has made these issues, 
for me, an abiding passion.
    Preventing the use and spread of weapons of mass 
destruction is clearly a vital national security interest of 
the United States. It is critical to slow, stop, or roll back 
the acquisition of weapons of mass destruction, delivery 
systems, advanced conventional weapons, and associated 
materials and technologies by state and nonstate actors alike. 
It is critical both to prevent the use of such weapons and to 
hold those who do use them strictly to account. And it is 
critical to manage wisely the challenges of stability and 
deterrence that are inherent in relationships between nuclear-
weapon states.
    If confirmed, Mr. Chairman, I look forward to working with 
State Department colleagues, with stakeholders from across the 
interagency, with diplomatic counterparts, with the private 
sector and civil society, and yes, of course, with 
congressional members and staffs in order to protect and 
advance the interests of the American people and of 
international peace and security.
    Mr. Chairman, Ranking Member Cardin, members of the 
committee, I thank you for the opportunity to appear before you 
today, and I do welcome your questions and your comments.
    [Dr. Ford's prepared statement follows:]


             Prepared Statement of Dr. Christopher A. Ford

    Mr. Chairman, Ranking Member Cardin, and members of the committee, 
it is an honor to appear before you today as President Trump's nominee 
to be Assistant Secretary of State for International Security and 
Nonproliferation. I want to thank the President for his confidence in 
me, and for the opportunity--with your approval--to help meet the 
formidable challenges of protecting the American people and preserving 
and advancing the national interests of our great Republic in the face 
of ongoing challenges from the proliferation of weapons of mass 
destruction (WMD), delivery systems, advanced conventional weapons, and 
associated materials and technologies. I would also like to express my 
gratitude to Secretary of State Rex Tillerson for supporting my 
nomination.
    But I also want to take a moment to thank my family--my wife, 
Schuyler, and my daughter, Stella-Grace--for their love and support. 
Almost all of my professional career has been spent in government, or 
near it in the public policy community, and I think my record 
demonstrates an unstinting commitment to public service. Nevertheless, 
it is they, my wife and my daughter, who are really the sun around 
which my planet revolves. I owe them a tremendous debt of gratitude for 
all their patience, their kindness, and their support--especially in 
the months since I joined the National Security Council staff last 
January--and I am pleased beyond words that they have been able to join 
me here today. Schuyler and Stella-Grace, I love and I thank you with 
all my heart.
    I have been privileged to serve in many positions of responsibility 
and trust in national security affairs over more than two decades--as 
indeed it was my dream to do when studying many years ago as an 
undergraduate at Harvard, getting my doctorate as a Rhodes Scholar at 
Oxford University, and getting my law degree at Yale. I have served as 
an intelligence officer in the U.S. Navy Reserve, as a Principal Deputy 
Assistant Secretary of State, and as the U.S. Government's Special 
Representative for Nuclear Nonproliferation, and I have worked for five 
different Senators on six different committee staffs here in the U.S. 
Senate--including at the Foreign Relations Committee.
    It has been my particular honor to serve the American people over 
the last 11 months on the National Security Council (NSC) staff, where 
I presently run the Weapons of Mass Destruction and 
Counterproliferation Directorate and serve as a Special Assistant to 
the President. My experience with nonproliferation and related national 
security issues goes back many years now, but it is probably my time at 
the NSC that has done the most to prepare me for the honor of serving--
if confirmed--as Assistant Secretary of State for International 
Security and Nonproliferation.
    I am proud of the role I have played in helping the new 
administration find its footing in this arena and begin to build out a 
far-sighted and resolute approach to meeting the many challenges we 
face.
    Though I have never been able to imagine not being deeply involved 
in working on U.S. public policy and national security issues, the WMD 
business is not a line of work in which I originally expected to be. My 
doctoral dissertation, after all, was on international relations theory 
and African regional relations. When I practiced law, I worked on toxic 
tort class action litigation, and I spent years doing Congressional 
investigations on multiple Senate staffs. My Senate career has also 
included doing intelligence oversight during the first two years of the 
``Global War on Terrorism,'' working on appropriations legislation 
during the tumultuous period surrounding the 2013 government shutdown, 
and a broad range of subsequent legislative work for this very 
committee just last year.
    I have also, at various points, helped an international war crimes 
tribunal set itself up in West Africa, produced intelligence analyses 
as a Navy officer, clerked briefly for a federal appellate judge, and 
helped with research on elephant physiology while living for months in 
a Kenyan game park. I have trained at a Zen Center in the foothills of 
the Sangre De Christo Mountains, taught Japanese jujutsu at a dojo here 
in Washington, and written books on naval history and on Sino-American 
relations.
    But I have been drawn to the field of WMD because of its 
combination of intellectual challenge and technical complexity, and 
because of its obvious criticality to the preservation of U.S. national 
security, of international peace and security, and potentially even of 
civilization itself. This admixture of challenge and urgency has made 
these issues, for me, an abiding passion.
    Preventing the use and spread of weapons of mass destruction is 
clearly a vital national security interest of the United States. It is 
critical to slow, stop, or roll back the acquisition of WMD, delivery 
systems, advanced conventional weapons, and associated materials and 
technologies by state and non-state adversaries alike. It is critical 
both to prevent the use of such weapons and to hold those who do use 
them strictly to account. And it is critical to manage wisely the 
challenges of stability and deterrence that are inherent in 
relationships between nuclear weapons states.
    If confirmed, I look forward to working with State Department 
colleagues, with stakeholders from across the interagency, with 
diplomatic counterparts, with the private sector and civil society, 
and--yes, of course--with Congressional Members and staffs to protect 
and advance the interests of the American people and of international 
peace and security.
    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
thank you for the opportunity to appear before you today, and I welcome 
your comments and questions.


    Senator Rubio. Thank you, Dr. Ford. And you have already 
made an extraordinary contribution. My wife has an upcoming 
birthday, and you just made a statement about your family. I 
hope this is not on television, but I am going to use that in 
the card. The sun that my planet revolves around. That is going 
on the card next week. Don't tell anybody. [Laughter.]
    Senator Rubio. Don't tell anybody where I got it. All 
right.
    So I will begin with the same question for both of you, and 
then I am going defer to the ranking member of the committee. 
So I just want to start out with this opening question, because 
I think it will cover sort of the scope of the hearing, and I 
think maybe set you up for future questions here from other 
Senators.
    And I will begin with you, Dr. Ford. What do you consider 
to be the biggest challenge that you will be facing, if and 
when confirmed?
    Dr. Ford. Thank you, Mr. Chairman.
    I would say that the biggest challenge is not any 
particular piece of the ISN Bureau's portfolio, but rather in 
the aggregate challenge that we face in dealing with 
nonproliferation issues generally.
    I think we are at a point at this juncture in world history 
where the global nonproliferation regime faces the accumulated 
stresses of many years, frankly, of failures of the 
international community to address proliferation challenges as 
quickly and effectively as they probably should. We are and 
have been in something of a race between the proliferators, who 
are trying to develop their threat systems as rapidly as 
possible, and the international community, which has been 
trying to build diplomatic and various other sorts of support 
to bring pressure upon those proliferators to not take such 
actions, to shore up, buttress, and improve the international 
institutions and norms and practices that help make it very 
difficult, if not impossible, to advance such systems. And we 
have not collectively been able to react to the challenge as 
fast as we had. The system has been placed under a very sort of 
slow-motion stress that it is not yet clear that it can handle.
    It is part of our challenge today in the policy community 
to react to these challenges across a range of policy areas, 
including in the areas that I would, if confirmed, have the 
honor to help manage at the ISN Bureau.
    Part of it will be shoring up those institutions to slow, 
stop, and, perhaps, roll back the possession of these 
technologies and materials, and just impede the progress of 
threat programs. Part of it is to improve international 
solidarity against those proliferators. Part of it is also, in 
a slightly different arena, to shore up the alliance 
relationships that were very important during the Cold War, and 
I think still remain extraordinarily important as 
nonproliferation tools. And fundamentally, it is to, if 
necessary, position ourselves for that which we cannot prevent 
from happening, to make sure that we are in a position to 
manage the challenges that proliferation presents once it has 
taken root.
    This is a full-spectrum challenge that we have, I think, 
over the years hitherto not been very good collectively 
addressing. And it is going to be a full-court press I think 
across the U.S. interagency and with international partners to 
address it in the years ahead.
    That is most formidable challenge, I think, that we face.
    Senator Rubio. Dr. Poblete, I have the same question with a 
slight twist on it. In addition to the broader context, if you 
could, a little bit, get into, as part of the question of what 
the biggest challenge would be, the notion or the idea or the 
reality of the impact that a series of smaller violations taken 
in their sum on any of these agreements, the cumulative effect 
of a pattern of smaller violations over an extended period of 
time, the role they might play in your job, as well as 
answering the broader question of what you consider the biggest 
challenge you will face, if confirmed.
    Dr. Poblete. Thank you, Senator.
    First, I have not had the opportunity to consult with the 
experts in the bureau, so in response to your question about 
the biggest challenges, based solely on my interpretation and 
my observations of these issues, and consultations with my 
would-be predecessors, if confirmed, I would answer it simply 
as integration of the Arms Control, Verification and Compliance 
Bureau, and restoring the bureau's statutory role.
    And what I mean by that is--Senator Cardin mentioned 
preventing proliferation. To prevent proliferation, we also 
need to ensure that we have rigorous verification and 
compliance measures incorporated from the onset. We must also 
ensure that there is accountability for those immediate 
violations as well as patterns of marginal violations.
    When I referred to patterns of marginal violations in my 
prepared remarks, it is, again, referring to the mandate that 
the Congress provided to the bureau. And unfortunately, when I 
look at what has transpired in the last few years--I will use 
the example of Iran and the JCPOA.
    It is my understanding that here is a seminal, by many 
accounts, a seminal, politically binding commitment, not a 
formal agreement, but a politically binding commitment, to 
counter the threat posed by a rogue regime such as Iran. Yet it 
is my understanding that neither in the negotiation nor in its 
implementation was the bureau that was mandated, statutorily 
tasked, with verification and compliance included in these 
negotiations in the implementation process.
    I find that to be very troubling. I do not believe that 
that is the intent of the Congress, of this committee.
    And when referring to patterns of marginal violations, 
again, I must revert back to the JCPOA.
    In its totality, one can see a troubling response and a 
troubling set of actions and activities by the Iranian regime. 
If those go unanswered, if we allow the Iranian regime, just as 
in the past we have allowed Russia or North Korea or other 
violators to test the waters of our commitment to these legally 
binding agreements or politically binding commitments, we are 
eroding our very priorities to prevent proliferation.
    Senator Rubio. Thank you.
    The ranking member.
    Senator Cardin. Dr. Poblete, let me ask you a question in 
regard to the Comprehensive Test Ban Treaty. We are not a 
member of that treaty. It has never been ratified. Do you see 
any circumstances in which the United States would no longer 
maintain its ban on nuclear explosion testing?
    Dr. Poblete. Thank you, Senator.
    First, I would like to clarify that the administration is 
undertaking a comprehensive review of all the arms-control 
agreements, nonproliferation agreements, that we are 
signatories to, parties to, that we have ratified and not 
ratified.
    Now, I will not presume to assume what the administration 
will determine with respect to the Comprehensive Test Ban 
Treaty. What I will say is that in the U.S. deliberations and 
the U.S. role and perception of the Comprehensive Test Ban 
Treaty, there is value. The U.S., writ large, this 
administration and others, have identified certain components 
of the Comprehensive Test Ban Treaty such as----
    Senator Cardin. I am trying to get to the specific answer.
    Dr. Poblete. Sure.
    Senator Cardin. Are there any circumstances that you would 
support the United States giving up its moratorium on nuclear 
testing?
    Dr. Poblete. No, sir.
    Senator Cardin. Thank you. I appreciate that answer.
    New START, if Russia is in compliance, if they get down to 
the numbers that are required, would you recommend a 5-year 
extension of the New START Treaty?
    Dr. Poblete. Senator, as you mentioned in your opening 
statement, this is still in the early stages. The Russian 
Federation, I understand, is on track to meet the obligations, 
the central tenets, of New START in February of next year. That 
has yet to be confirmed. That has yet to be seen. It is yet to 
be verified.
    Senator Cardin. We will have inspections that we will be 
able to determine whether, in fact, they have reached that. If, 
in fact, the report shows that they have reached the required 
limit, do you believe we should extend the New START for the 5-
year provision?
    Dr. Poblete. Again, Senator, it would be premature of me to 
get ahead of the administration's review. However, specifically 
to your question, it hasn't happened yet. And again, I would be 
getting ahead of the facts.
    Senator Cardin. I understand you have to--and we have had 
nominees who have come here, given their views, and the 
administration has come out with different views, and they 
support the administration's view. I understand that.
    But you are certainly aware of the New START Treaty and its 
obligations, et cetera. If, in fact, there is compliance, do 
you believe it is a useful treaty for us to continue for an 
additional five years? I am just asking your view on it. I 
understand that the administration will make the final 
judgments.
    Dr. Poblete. It is a useful treaty, if compliance by the 
Russian Federation is sustained, verifiable, and accounted for. 
We still have a few years before a determination needs to be 
made as to whether or not to extend the New START Treaty.
    So all I can say to you, sir, is that I will commit to 
ensuring that there is the necessary information; that I put 
forth that information that has been verified, confirmed, and 
documented to the policymakers; that I will build the case one 
way or the other. If there are violations, I will build that 
case and put it forth to the policymakers. If there is 
compliance, I will do so as well.
    Senator Cardin. Yes, I understand. The question is not 
whether there is compliance or noncompliance. I am assuming 
there is compliance. Otherwise, obviously, we have a different 
issue. I was trying to assess your views as to whether this 
agreement should be extended if there is compliance by Russia.
    And as I understand it, you are not prepared to make a 
statement on that at this time.
    Dr. Poblete. Sir, I think it is too early to tell since the 
Russian Federation has not met its central limits just yet, 
just yet.
    There is value to intrusive inspections. There is 
definitely value to the data-sharing that is encompassed in the 
New START Treaty. However, it is too early to make a 
recommendation when we do not yet have a definitive conclusion 
on compliance by all the parties.
    Senator Cardin. Well, we do know the Russia is out of 
compliance with the INF. We do know that. That determination 
has been made. How do you believe we should proceed, in regard 
to Russia's violations in its GLCM missile program?
    Dr. Poblete. Senator, simply, we have a three-pronged 
approach. It is my understanding that the U.S. continues to 
engage the Russian Federation, either through the Special 
Verification Commission, through allies at the highest levels, 
to try and convince the Russian Federation to come into 
compliance. I also know that we are engaging our allies and 
partners who are directly affected by the Russian Federation's 
violations of the INF. And lastly, we are considering a number 
of countermeasures, some of which have the congressional 
imprimatur, such as economic countermeasures.
    Our focus, however, given that our responsibilities, our 
international obligations to our allies and partners, must also 
include robust missile-defense capabilities to ensure that we 
are in compliance not just with our INF commitments but our 
global commitments to our allies and partners.
    Senator Cardin. So the National Defense Authorization Act 
provides authorization for defense against Russia's activities 
in regard to the missile program, which is something I strongly 
support. Do you believe we should seek compliance with the INF 
by Russia, not try to escalate the violations by the U.S. 
producing a weapon that would also be in violation of the range 
of the INF?
    Dr. Poblete. Well, Senator, if confirmed, what I can commit 
to you is that any countermeasures involving the range of U.S. 
Government agencies, that it will be my responsibility and my 
commitment to ensure that the United States is treaty-compliant 
and that whatever measures are undertaken do fall within the 
construct of a legally binding agreement, which is the INF.
    I know the Russian Federation has made very false claims 
against the U.S., trying to create a narrative that the United 
States' capabilities, missile-defense platforms in Romania and 
Poland under the European Phased Adaptive Approach, are in 
violation of INF. But the U.S. position is that interceptors 
are not a violation of the INF, given their purely defensive 
capabilities.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Rubio. Senator Isakson?
    Senator Isakson. Thank you, Chairman Rubio.
    Thank you, both of you, for being willing to serve our 
country.
    Mr. Ford, you made a comment, I think I took my notes 
right, but I want to repeat it, if I didn't, so you can correct 
it or amplify on it. You said we are confronting a time now 
where we are facing the aggregate accumulation of failures to 
deal with many nonproliferation issues.
    I believe I got that right. Did I get that right?
    Dr. Ford. That sounds correct to me, Senator.
    Senator Isakson. I happen to think you are right. I come 
from the State that was represented here in Senate for years by 
Sam Nunn who was on this committee under Dick Lugar. Dick Lugar 
and Sam Nunn are the two most prominent Americans on 
nonproliferation that I think we have alive today in this 
country.
    I think they would agree with you that we have accumulated 
some failures, and it is time for us to have some successes.
    Should you be confirmed, which I believe you will, what are 
you going to focus on to put an end to the failures and begin 
some successes?
    Dr. Ford. Thank you, Senator.
    I think in that respect, I would identify two things that 
correlate, I think, to the most significant failures that we 
collectively, not just in the U.S., but in the international 
community, have had. One of the challenges, of course, most 
obviously is North Korea.
    When I was last in the State Department, it was round about 
the time when we confronted them with evidence of their 
cheating under the so-called agreed-framework of 1994. They, in 
response to being caught with their hand in the proverbial 
cookie jar, pulled out of the NPT and have been busily building 
up their missile forces and their nuclear weapons ever since.
    Clearly, getting a hand on that somehow has got to be an 
enormous priority. It is the single most horrific sort of 
bleeding sore on the global nonproliferation regime today.
    The ISN Bureau has, in that respect, very important 
responsibilities related to the implementation of 
nonproliferation sanctions against the North Korean regime. And 
certainly, if confirmed, it would be a subject of enormous 
focus and emphasis for me as Assistant Secretary to make sure 
that we were doing absolutely everything that we can do in 
support of the President's what we call the maximum pressure 
strategy of using every available diplomatic, economic, 
sanctions, law enforcement, financial, and other tool to 
maximize the pressure upon the North Korean regime in ways that 
have not yet hitherto been done and to bring international 
partners along with us in that respect, to make sure that they 
face, finally, at long last, an incentive to make a different 
strategic choice.
    So that would be the highest priority. And I would also 
identify the slightly longer term, but also extremely important 
challenge, Senator, of addressing the Iranian proliferation 
challenge.
    One of the accumulated problems, I think, that the global 
nonproliferation regime faces is the legitimation of fissile 
material production in Iran, a country which, of course, for a 
long time had a very active nuclear weapons program. Managing 
the challenge that that presents to the nonproliferation regime 
is going to be an ongoing one for all of us. Negotiating a 
better way to approach Iranian proliferation challenges, 
especially over the long term in the years in which the current 
restrictions under the Joint Comprehensive Plan of Action 
nuclear deal are set to evaporate, and leave Iran in a place 
where they can build up essentially any size nuclear program 
they want, that is not an acceptable nonproliferation path, I 
think, from the United States' perspective. And it would be an 
important focus of effort, if I were confirmed to be Assistant 
Secretary for ISN, to help lead the diplomatic charge to bring 
that threat finally under control in an enduring not merely a 
temporary fashion.
    Senator Isakson. I think you are exactly correct. I think 
Senator Nunn and Senator Lugar would have said the same thing 
were they sitting in this room today.
    The two challenges that face us are the Iranians and the 
joint agreement, and the North Koreans, where we have almost 
been an enabler, in some sense, by looking the other way, 
allowing them to get away with some of the things that they 
have.
    Ms. Poblete, you made a very interesting statement, which I 
also want to give you a chance to correct if I wrote it down 
wrong, because I was trying to write while I was listening. You 
said you were somewhat shocked by the non-inclusion of the 
Secretary's department that you are going to replace in the 
JCPOA.
    Was there not any inclusion in the State Department of any 
State Department personnel during the JCPOA negotiations, as 
far as compliance issues are concerned?
    Dr. Poblete. Thank you, Senator.
    It is my understanding, after having spoken with a range of 
former and current State Department officials, including the 
would-be predecessors, the former Assistant Secretaries for 
Verification and Compliance, that, no, that bureau was not 
engaged. And to go even further, if I may, Senator, on the Iran 
missile threat, for example, it turns out that the Verification 
and Compliance Bureau has virtually zero role in the 
implementation and verification of Iranian compliance with the 
U.N. Security Council Resolution 2231 regarding Iran's 
ballistic missile capabilities.
    At most, the Verification and Compliance Bureau's role with 
respect to Iranian missile threats or North Korean missile 
threats is reassuring our allies, engaging, fortifying via the 
strategic dialogues with the Republic of Korea, with Japan, and 
really focusing on ballistic missile defense to protect against 
those emerging threats, growing threats, from those two rogue 
regimes.
    I hope, if confirmed and given the opportunity, to be a 
strong advocate for the bureau and ensuring that its role is 
restored to its statutory commitment, its statutory guidance, 
which is to be an integral part, perhaps not the lead, as 
regional bureaus tend to take the lead on these agreements, on 
these negotiations, but certainly to be at the table and make 
sure that verification and compliance is not set aside and is 
considered a priority.
    We cannot have executive orders, national emergencies, with 
respect to the proliferation of weapons of mass destruction and 
not have the Verification and Compliance Bureau.
    If I may just indulge for one second, it has been said in 
the compliance report, which Senator Cardin mentioned in his 
opening statement, it has been said by a range of 
administration officials that failure to hold accountable, 
failure to ensure the verification and compliance is an 
integral part from the declarations by the target nations to 
the implementation of agreements and throughout negotiations 
will only help perpetuate the problem and will only help fuel 
further proliferation.
    Senator Isakson. Mr. Chairman, I know I am over time, but I 
allowed her to indulge herself in her answer. I am going to 
indulge myself in just a little amplification on that.
    Your answers were fantastic, and I appreciate both of them, 
because no question, North Korea and the JCPOA are the two 
formidable challenges we have to meet in the future.
    Also, with Senator Cardin's questioning on New START, I was 
here when we negotiated New START, did the hearings here. And 
the one thing about New START, and you can correct me if I am 
wrong, we did some breakthroughs in the compliance area that we 
had never done in any treaty before. We have more ability in 
terms of New START to verify whether the Russians are or are 
not complying than we have in any other agreement, collective 
group of agreements combined. If the JCPOA had even a smidgen 
of the compliance requirements that the New START has, we would 
not be worried about that today.
    So I just want to commend both of you on your answers and 
hope you will follow through on that direction in your jobs. If 
you do, you will go down in history as two of the best 
appointees this President has made.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for your past service to the country and 
for your willingness to be considered for these very important 
positions.
    Dr. Ford and Dr. Poblete, Secretary Tillerson has said that 
Iran is complying with the JCPOA.
    Dr. Poblete, I understood you to say that you think they 
are in violation. Did I understand that correctly? And can you 
describe what those violations are?
    Dr. Poblete. Thank you, Senator, for the opportunity to 
clarify. What I was focusing on were patterns of marginal 
violations.
    The Secretary General, the Director General of the IAEA, as 
you mentioned, the Secretary of State have said that Iran is in 
compliance. But really what the IAEA Director General has said 
is that it is not in material breach. But the Director General 
has, in fact, mentioned marginal breaches. The President also 
delineated a number of marginal breaches. Several members of 
this committee have also done so.
    Senator Shaheen. Okay. So that is what you were referring 
to when you were suggesting violations.
    Dr. Poblete. Right.
    Senator Shaheen. Dr. Ford, do you agree with Dr. Poblete 
relative to that concern?
    Dr. Ford. Thank you, Senator.
    One of the things that we have tried to do as resolutely as 
we can over the last 11 months or so since the new 
administration took office is to try to ensure that the JCPOA 
is interpreted as strictly as possible, and that it is enforced 
as rigorously as possible.
    In addition to all the other work that we are trying to do 
with respect to addressing the Iranian proliferation challenge 
over the long term, one of things that we have tried to do in 
the Joint Commission process under the JCPOA, for instance, is 
to work with our European partners, in particular, to end pre-
existing approaches to sort of meeting in the middle when Iran 
and its continual efforts to sort of push the envelope of JCPOA 
interpretation would ask for something that is on the margins 
of what it clearly should--perhaps slightly beyond where it 
should actually be allowed to go. There was a degree of 
compromise in approaching those things in the past, which one 
can see from the publicly released Joint Commission documents 
that were published I believe last December.
    We are not in the meeting-in-the-middle business anymore. 
In working with our Joint Commission partners, from whom we 
have been pleased to get very good support, we have been taking 
a much more strict line on those things within the JCPOA since 
last April.
    Senator Shaheen. I appreciate that. And I think all of us 
agree that we want to hold Iran accountable. But if the 
administration and if the State Department believes that Iran 
is not complying, why hasn't the administration invoked the 
dispute resolution provisions of the agreement? For either of 
you.
    Dr. Poblete. Well, Senator, I have only been part of the 
administration since----
    Senator Shaheen. You can just tell me what you know. You do 
not have to give me the response from the administration.
    Although, Dr. Ford, you were part of the NSC, so I would 
assume this came up on the NSC and you might have discussed 
whether to invoke those provisions.
    Dr. Ford?
    Dr. Ford. Sure. Yes, we have many times and continually 
over the last year or so discussed Iranian compliance. At the 
moment, the assessment is that Iran is complying with its 
obligations under the JCPOA. As I indicated, we are trying to 
keep them from sort of nudging up to those lines in ways that 
they felt free to do before.
    And I should also point out that in the President's speech 
on October 13th, he declined to recertify under the INARA 
statute, not on the basis of Iranian compliance questions, but 
on the basis of a different INARA certification criterion set 
forth in the statute, whereby he determined that, in his view, 
the sanctions relief given to Iran under the JCPOA was not 
proportional and appropriate in light of what it was that we 
got from Iran under that deal.
    There are multiple criteria under INARA. He chose that 
particular one, and it has been his direction to the 
administration to try to work with Congress and international 
partners to better address these challenges going forward, but 
remaining for now, certainly, within the JCPOA construct in 
order to use that remaining within the agreement in order to 
leverage international support, not just in addressing long-
term proliferation challenges but also the range of Iranian 
malign acts outside the JCPOA.
    Senator Shaheen. Right. And I think we would all agree that 
Iran is engaging in those malign acts outside of the JCPOA, but 
they are not issues that are covered under the JCPOA. And I 
understood you to say that you believe that Iran is in 
compliance, and that is why the administration hasn't invoked 
the dispute resolution mechanism.
    Can I ask you, Dr. Ford, if you agree, and maybe I 
misunderstood what you were saying, Dr. Poblete, but I 
understood you to say, in answer Senator Cardin's question 
about nuclear testing, that you believe we should continue the 
moratorium on nuclear testing.
    Did I understand that correctly? A yes or no answer would 
be appreciated.
    Dr. Poblete. That is correct, Senator.
    Senator Shaheen. Do you agree with that, Dr. Ford? Yes or 
no.
    Dr. Ford. I am sorry, Senator, do I agree that?
    Senator Shaheen. That we should continue the moratorium on 
nuclear testing?
    Dr. Ford. I see no reason to do otherwise at this time, 
Senator.
    Senator Shaheen. Thank you.
    I want to ask you both, one of the concerns that I have 
expressed, as have other members of this committee, has been 
relative to the proposed reorganization that is going on at the 
State Department. And you are both taking over very important 
bureaus at the State Department. Can you tell me if you have 
been consulted on the reorganization plan, either of you?
    Dr. Poblete. No, Senator.
    Senator Shaheen. Dr. Ford?
    Dr. Ford. I am not privy to what the redesign will look 
like. I have not consulted on this, Senator.
    Senator Shaheen. And if you have not been, are there any 
concerns or changes that you believe should be made to the 
bureau that you are going be heading, should you be confirmed?
    Dr. Poblete. Senator, as I mentioned previously, my goal 
is, if confirmed, to first meet with all the personnel that is 
currently in the bureau, to seek their guidance, their insight, 
their perspectives on what they perceive to be the challenges 
of the bureau and the needs of the bureau. And if confirmed, I 
hope to next year be actively engaged and have the opportunity 
to engage the Secretary directly on these redesign, budgetary, 
and related issues.
    Senator Shaheen. Well, thank you. That seems like a very 
reasonable approach to me.
    Dr. Ford?
    Dr. Ford. Thank you, Senator. My contact with the ISN 
Bureau is quite routine in my current responsibilities, but I 
am less familiar with the details of how it is staffed and 
organized internally with respect to how it meets its current 
challenges.
    At this point, what I should point to--and that is 
something to which Senator Cardin alluded earlier. It has come 
to my understanding that relatively recently, pursuant to the 
Countering America's Adversaries Through Sanctions Act, or 
CAATSA as its acronym, I think, goes--I do not know who is 
responsible for the acronyms, but that is an impressive one. 
The Secretary has identified the ISN Bureau as having a lead 
responsibility for administering Section 231 of that statute, 
which has to do with putting sanctions of various sorts upon 
those who engage in what are called significant transactions 
with entities affiliated with the Russian defense and 
intelligence sectors, as set forth in the Secretary's guidance, 
I believe just a month ago.
    This is an area with which my current NSC responsibilities 
have not had much to do yet, so I am learning this area as 
well. But it is my understanding that this now will be a part 
of the responsibilities of the ISN Bureau, and it is not 
something that the bureau has hitherto been involved in doing.
    So certainly, from this vantage point, I think one of the 
more important initial things for me to look at, if confirmed, 
would be to make sure that appropriately staffing and managing 
these new paths of CAATSA responsibilities under Section 231 
are appropriately handled in a way that allows ISN to fulfill 
those responsibilities well, but also to do so in a way that 
does not detract from the core missions of the bureau in 
fighting proliferation.
    So that would be, I think, certainly one management 
challenge that is visible immediately out-of-the-box, as it 
were.
    Senator Shaheen. Well, thank you. I certainly hope you 
will, like Dr. Poblete, engage with members of the bureau and 
respond to concerns before making any sweeping changes.
    Dr. Ford. Absolutely, Senator.
    Senator Shaheen. Thank you.
    Senator Rubio. Thank you.
    Senator Merkley?
    Senator Merkley. Thank you, Mr. Chairman.
    And thank you to both of you.
    I wanted, Dr. Poblete, to ask a follow-up question on the 
verification and monitoring measures that are being used in the 
JCPOA. We heard reference earlier that if only they were as 
good as some of our other agreements like New START, we would 
be in good shape. My impression of the IAEA protocols is that 
they are more prevalent, more in number, more in high-tech, in 
every possible way improvements on our previous arms control 
agreements. But can you just comment a little bit on the 
extensive measures that are being used for real-time 
monitoring?
    Dr. Poblete. Thank you, Senator.
    It is my understanding, based on some of the recent 
statements made by the Director General of the IAEA, that it is 
their assessment that, currently, they have some of the most 
rigorous monitoring and verification capabilities that they 
have had in recent years. However, as you well know, 
verification and compliance is an evolving process. As we 
develop new technology, as we look at addressing new threats 
and, again, trying to look at not just what is known but trying 
to anticipate what is the unknown.
    And in the case of Iran and the JCPOA, given Iran's 
history, it is incumbent upon us to not just rely on the IAEA, 
not just provide support to the IAEA, but also spur our own 
efforts at identifying and developing technologies that will 
address the unknown, everything from trying to identify ghost 
particles to the lowest possible yield of nuclear material.
    Senator Merkley. Thank you. And I have been very impressed 
by some of the new mechanisms that are being developed to do 
real-time monitoring of the gas flows in the enrichment 
location, in order to make sure that they stay below the 3.67 
percent. So I know the IAEA is doing everything it can to 
utilize those new provisions.
    Article VI of the Non-Proliferation Treaty states that each 
of the parties undertakes to pursue negotiations in good faith 
``on a treaty on general and complete disarmament under strict 
and effective international control,'' referring to nuclear 
disarmament.
    Is the U.S. currently undertaking such negotiations, Dr. 
Poblete?
    Dr. Poblete. I am not aware, Senator, of what the status is 
of the U.S., with respect to your question.
    Senator Merkley. It is one of the three pillars of the NPT. 
Are there various ways that you think those three pillars could 
be strengthened?
    Dr. Poblete. Again, Senator, I would not presume to engage 
until I have had the opportunity to discuss this matter, if 
confirmed, with the legal experts, with the technical experts, 
the scientific experts, to ensure that I have a holistic view 
of what the opportunities are with respect to the NPT.
    Senator Merkley. Those three pillars are nonproliferation, 
peaceful use of nuclear power, and disarmament, and they are 
meant to bridge the very difference between nuclear power 
states and non-nuclear power states. Is that bridge, which puts 
different responsibilities on different parties to the treaty, 
one which you fully support?
    Dr. Poblete. Senator, I fully support looking at the treaty 
in a holistic fashion. In fact, one of the concerns that I had 
before, during, and after, with respect to Iran or North Korea, 
but particularly with respect to Iran, is that, predating the 
JCPOA, when Iran was in violation of its safeguard agreements, 
when Iran was in violation of its overarching NPT obligations, 
that the focus was still on its ``inalienable right'' to 
peaceful, civilian nuclear energy, without taking into 
consideration that there are other articles of the NPT that 
hold parties accountable for violations of their safeguard 
agreements and their overarching NPT obligations.
    So I definitely agree that the NPT cannot be approached 
from a myopic standpoint, that we must look at all of the 
articles of the NPT in tandem.
    Senator Merkley. Thank you. I want to ask you about Article 
VI and our responsibilities to be engaged in conversations 
about complete disarmament, nuclear disarmament. You indicated 
that you weren't familiar with such ongoing discussions. But 
there has been, in the past, a P5 process that at least 
constitutes a forum for such discussions, discussions at least 
pointing in the direction of the possibility of pursuing the 
responsibilities under Article VI.
    Do you support reengaging a P5 process?
    Dr. Poblete. Well, sir, I believe it is always helpful to 
engage with our allies, particularly nuclear-weapons states. I 
believe that, given the current security environment, however, 
the focus needs to be on countering the proliferation by 
nonnuclear-weapons states.
    The P5 have demonstrated, most of them being democracies, 
but they have demonstrated to be fairly responsible as 
stakeholders, perhaps with the exception of Russia and China. 
But generally, the P5 have demonstrated to be responsible 
stakeholders.
    Senator Merkley. Thank you.
    Senator Rubio. Senator Young?
    Senator Young. Thank you, Mr. Chairman.
    Ms. Poblete, Dr. Ford, great to be with each of you.
    Can either of you tell me whether the IAEA inspectors have 
inspected the military sites in Iran since the implementation 
of the so-called Iran nuclear agreement?
    Dr. Ford. Thank you, Senator.
    The specific locations of the inspected sites are treated 
within the IAEA system as safeguards confidential, and they do 
not publicly report that.
    Through various means, we have frequently some insight into 
what the IAEA has been able to accomplish. And according to the 
Director General, they have not been refused, so far, any 
request to visit any site at which they have had reason to 
believe illicit activity has been occurring or which they felt 
it necessary to visit in order to fulfill their monitoring and 
verification responsibilities under the JCPOA.
    It would be easier to talk about what we think we know 
about IAEA activity in this respect in a closed session. But so 
far, the IAEA has been very clear that they do not feel that 
they have been rebuffed in any inappropriate way, thus far.
    Senator Young. So that was a very precise and much 
appreciated answer. The short answer is you do not know, 
because it is difficult to differentiate between military sites 
and other sites, because IAEA doesn't release that information. 
Is that a correct recapitulation of how you started your 
response?
    Dr. Ford. I would say the safest way to characterize it, 
Senator, is that it would be a much easier conversation to have 
if we were in closed session, so that it would be possible to 
discuss information that it is not possible to discuss in 
public.
    Senator Young. Okay. That is fair.
    Doctor, do you have anything to add?
    Dr. Poblete. Well, Senator, as the IAEA has said, they have 
not been denied requested access. Now, I believe that you might 
be referring to what is known as the T Section of the JCPOA.
    While the IAEA may feel that it has not been denied, the 
question rests on whether or not, if they were to ask, whether 
or not they have asked for specific access to these designated 
military facilities, some of which were part of the possible 
military dimensions questions that the IAEA had prior to the 
JCPOA, and to whether or not they will have the authority, if 
they press the Iranian regime, to gain that access. That is 
still a subject for discussion.
    Senator Young. So do we know, and can you tell me in this 
setting, whether the IAEA inspectors have requested access to a 
designated military site in Iran?
    Dr. Poblete. The IAEA Director General has said that they 
have not been denied access to any facilities that they have 
requested. As to whether or not those requests have included 
specific military facilities, I do not know, sir.
    Senator Young. Is that information that you have access to?
    Dr. Poblete. In my current role, I do not have access to 
certain intelligence information and----
    Senator Young. Dr. Ford, do you have access to that 
information?
    I am sorry for interrupting.
    Dr. Ford [continuing]. Senator, I do have insight into some 
of these questions, which I would be happy to talk to you in a 
different forum, if that is all right, sir.
    Senator Young. Okay. I will take you up on that. I am 
grateful, for volunteering that. And I just note that it is 
pretty difficult for us to strictly and robustly verify 
compliance, if we do not have answers to these questions and, 
more specifically, if the military sites have been designated, 
effectively, no-go zones for IAEA inspectors.
    So I see my time is dwindling down, but I will turn very 
quickly to Iran's ballistic missile program.
    In addition to their development over the years of WMD, 
their delivery systems have caused great consternation for 
those of us who want to keep the region and the world safe and 
secure. In fact, Iran is the largest ballistic missile force in 
the Middle East. They can hit targets up to 2,000 kilometers 
away, including Israel, our good friend, and the thousands of 
U.S. troops in the region.
    Dan Coats, who, of course, is our Director of National 
Intelligence, reiterated that the community's assessment is 
that ``Tehran would choose ballistic missiles as its preferred 
method of delivering nuclear weapons, if it builds them.'' He 
also noted progress on Iran's space program could shorten a 
pathway to ICBM, because space launch vehicles use similar 
technologies.
    Dr. Ford, what is your assessment of Iran's ballistic 
missile program?
    Dr. Ford. Well, I certainly would not gainsay anything that 
Director Coats has said. I think you have hit the nail on the 
head, Senator, in pointing to that as a focus of enormous 
concern.
    Iran does have a very extensive missile program. It has 
been engaged in a very elaborate and fast-paced program of 
missile testing. It has been building out missiles across a 
range of capabilities, increasing the accuracy of those that 
they possess.
    And I should also point out they have been involved in 
proliferating missile technology, supplying missiles to 
Lebanese Hezbollah, for example, and to Houthis in Lebanon.
    This is not just a question of indigenous threats in Iran, 
but of the spread of such threats across the region, as a part 
of Iran's pattern of destabilizing behavior.
    Senator Young. So I would like to follow up with each of 
you. If you have a very brief response to the following 
question, I would be grateful.
    The proliferation of weapons out of Iran or the 
proliferation of material and expertise from, say, North Korea 
into Iran, are there additional things that we as a Nation 
should be doing to address those very important issues?
    Dr. Poblete. Briefly, Senator, there are a myriad of U.S. 
statutes that address not just the individual proliferation by 
rogue regimes but the collaboration between these rogue 
regimes. I would only add a point of caution.
    As the focus is, and rightly so, on increasing and imposing 
crippling pressure on the North Korean regime, it is critical 
that we not lose sight of Iran. It is troubling to see that 
many of our partners and allies who are hyper-focused on the 
North Korean threat, because they would be directly in the line 
of fire, so to speak, from Pyongyang, are also now shifting 
gears and are investing and engaging economically with the 
Iranian regime.
    You cannot delink the two. What benefits one ultimately 
benefits the other.
    Dr. Ford. Senator, to take Iran as an example, I think it 
is precisely those regional proliferation threats that are one 
of the multiple centers of focus for the new Iran strategy that 
the demonstration has just announced in October, and which the 
interagency is in the process of building out even as we speak.
    It is a critical part of that strategy to try to approach 
the range of Iranian malign acts, including missile 
proliferation, support for terrorist organizations' regional 
destabilization, such as support for the Assad regime and the 
Syrian civil war and those sorts of things.
    From the perspective of the ISN Bureau, if confirmed as 
Assistant Secretary, one of my more important roles would be to 
support counterproliferation work on precisely these sorts of 
areas.
    When I joined the State Department many years ago now at 
the Verification and Compliance Bureau, those were the early 
days of what is still known as the Proliferation Security 
Initiative. It was an effort to bring international partners 
into interdicting weapons of mass destruction-related shipments 
worldwide.
    Since those days and the very early days of PSI, the U.S. 
interagency has built up a very formidable interagency 
capability to impede progress on threat systems, using a full 
range of tools--diplomatic, financial, law enforcement, and so 
forth.
    I would be a proud inheritor of all the work that has been 
done in that respect and would certainly look for every 
available way to up our game, as it were, in order to impede 
those systems more effectively.
    Senator Young. I thank our witnesses.
    I thank the chairman for indulging me.
    Senator Rubio. Thank you.
    I am very pleased to recognize my friend, the Senator from 
New Jersey, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Given the proliferation of concerns that we have seen over 
the past year regarding rogue regimes, developments of nuclear 
arsenals, increased ballistic missile testing, and potential 
violations of international agreements, I would say that these 
appointments are well long overdue.
    Let me extend a personal welcome to Dr. Poblete, who I have 
known for years, going back to my tenure in the House of 
Representatives when she served as the staff director for the 
House Foreign Affairs Committee for my friend Ileana Ros-
Lehtinen. Congratulations on your nomination.
    Congratulations to you, Mr. Ford.
    As I noted, rogue nations and nonstate actors continue to 
present threats to the United States and its allies. And it is 
imperative that the United States continue to lead the world in 
combating the proliferation of weapons of mass destruction and 
curtail the ability of nefarious actors to utilize some of the 
world's most dangerous tools.
    Now, I did not support the JCPOA. I do not believe that it 
was sufficient in its construction to prevent Iran from ever 
developing a nuclear weapon. And I am concerned about elements 
of it where there will be a lifting, in just a few short years, 
of some other elements that are incredibly important.
    However, I believe it is important for the United States to 
demonstrate leadership and reliability on the world stage. And 
as long as Iran is upholding its commitments under an 
agreement, which I did not think was a standard we should have 
agreed to, but as long as its holding it up, it serves our 
interests to continue to work with our international partners 
to ensure robust enforcement of the deal.
    So what I do want to ask you about is, how will you seek to 
engage with our international partners to curtail Iran's 
ability to stockpile and disseminate conventional arms and 
ballistic missiles to its proxy networks around the Middle East 
once the U.N. lifts the embargo and terminates restrictions on 
ballistic missile procurement and development?
    Dr. Ford. Senator, I very much share your concern at the 
proliferation challenges that we may well face once the 
restrictions of U.N. Security Council Resolution 2231, for 
example, and the arms provisions therein expire. That is 
becoming a major focus, as you will not be surprised to learn, 
of our Iran strategy now. And addressing that would be a major 
focus of concern, if I were confirmed as Assistant Secretary 
for the ISN Bureau.
    One of the hopes that we have by remaining, pursuant to the 
President's direction, remaining at the moment within the JCPOA 
is precisely to use that step of remaining within the deal in 
order to make sure that we maximize our ability to work with 
international partners to address a range of threats in the 
proliferation space and more broadly on Iran, and the issue of 
the dramatic buildup of Iranian missile and advanced 
conventional weapons capabilities, and its proliferation of 
these capabilities to other regional players, proxy forces, and 
terrorist organizations, for instance, will have to be a focus 
of that concern. It is our hope that we can work successfully 
with our partners to maximize pressure.
    Senator Menendez. They seem to be reticent. I have seen the 
Europeans through, in essence, their Foreign Ministers suggests 
that they are not interested in any other sanctions.
    The problem with this is that, if we wait for the lifting 
moment of these sanctions, it will be far too late. And so I 
hope that the administration, and through you, will take a 
robust set of actions to engage our partners to say we cannot 
wait for the moment of the twilight to ultimately engage with 
the advent of what comes next. And that needs to be taken 
advantage of now.
    And I think, actually, that as I suggested at a meeting at 
the White House with some of my colleagues, there is an 
opportunity to create leverage as a result of some of the 
President's actions to move in that direction.
    The longer we wait, the more difficult it will be, and the 
more consequential to Iran's destabilization of the region. So 
I hope to hear, for example--I am very proud of what the Senate 
did. I was one of the instruments of it, the sanctions 
legislation we passed.
    But I have not seen that legislation be robustly used by 
the administration. They need to use the very tools we gave 
them that passed 98-to-2. We do not get many things around here 
to pass 98-to-2.
    That means you have the support of the United States Senate 
and of the Congress, giving you tools which, up to date, I have 
to be honest with you, I have not seen it.
    So when you want to do something to Iran to curtail its 
nefarious activities, the wherewithal exists already. And so I 
would hope that we would do that. And I would like to get your 
response to that.
    And then, finally, on North Korea, I see we have not 
addressed China. And it seems to me that, on this much I agree 
with the President, China is clearly the pathway to do 
something as it relates to North Korea. They are the ones that 
hold the resources with North Korea to change their mind.
    But I am not quite sure what the administration's 
philosophy is here. First, I thought we were going to challenge 
China to do the right thing. Then we were going to cajole it to 
do the right thing. But now we seem to be embracing it without 
it doing anything.
    We could declare it a currency manipulator. We could 
sanction banks that are pursuing access to North Korean money. 
We could, ultimately, look at some of our trading statuses. But 
I have not heard a whimper about that.
    So talk to me about sanctions and how you are going to use 
them. Especially since the Secretary has closed the office of 
sanctions coordinator, what role is sanctions going to play in 
countering our adversary's abilities to proliferate dangerous 
weapons? And how are we going to approach China, so we can deal 
with the question of North Korea short of military 
confrontation?
    Dr. Ford. There is a lot to respond to there, Senator. 
Thank you.
    I think I would say that I completely share your concerns 
that we must not wait until it is too late. We must not wait 
until the expiration point of key restrictions on Iranian 
threat programs, for example, and the Security Council 
resolution, just as I think we should not wait to try to 
address the challenge of putting enduring limitations upon the 
size and scope of Iran's nuclear program in the years in which 
the JCPOA's limits on that program come to expire.
    So I completely agree. The time to start working on those 
things is now. And that is exactly why this is an important 
part of the Iran strategy that we are currently building out.
    So I hope that you will not be disappointed in seeing how 
we handle that. But rest assured, Senator, that we are 
committed. I am personally committed, would be thus as 
Assistant Secretary, if confirmed, to making sure that those 
processes of trying to work out those enduring solutions begin 
sooner rather than later in order to maximize our chances of 
success.
    With respect to sanctions on Iran, we have been, in the 
last 11 months, I think, very forward leaning on this going 
back to the very--it was in February or March, you may recall, 
the phrasing about putting Iran on notice. We have been working 
the targeteers at the Office of Foreign Asset Control at the 
Treasury Department virtually 24/7. We are making them work 
extraordinarily difficult hours and challenges to make sure 
that so-called sanctions packages are developed at the utmost 
speed.
    They are a low-density, high-demand force, as they say in 
the military, because there is an important demand for 
sanctions across the proliferation space with North Korea, with 
Iran, also with regard to human rights issues in Venezuela and 
elsewhere. But we are we are processing and using the sanctions 
tools, which we are delighted to have from Congress, as fast as 
it is possible to process those packages.
    I must say personally, Senator, when I joined the State 
Department back in 2003, I am proud of the role that we played 
at that time in being very forward-leaning on using 
proliferation sanctions to try to change the behavior of 
proliferation entities around the world. We felt it was 
important to confront proliferator-facilitating entities with a 
choice. They could continue to be involved with the bad guys, 
as it were, or they could continue to be involved with the 
world's largest economy here in United States. They could not 
do both at the same time. Forcing more of them to make more of 
those choices I think had a measurable impact at the time. We 
were very proud of that.
    And since those days, thanks to the work of this committee 
and others, the toolkit available for imposing sanctions has 
expanded considerably, as have the number of executive orders 
devoted to providing those tools to our foreign policy 
apparatus as well.
    So rest assured, I would be, and I think we are already, 
very firmly committed to using every tool available.
    And finally, with respect to China, I think it is safe to 
say that present policy continues to use a mix of cajoling and 
pressures. You will notice in the implementation of sanctions 
that Chinese entities have begun to appear amongst those who 
have been sanctioned for engagements with North Korea that 
ultimately facilitate the North Korean weapons of mass 
destruction and missile programs. They have no protected status 
anymore.
    This is a process of gradually working with Chinese 
interlocutors to get them to move in the way that they do need 
to move if there is going to be a solution here. And although I 
would freely agree that they are not where they need to be at 
this time, it is also true that they are doing a great deal 
more than they used to. It is still insufficient, but there has 
been some Chinese movement on this, which I think has greatly 
discomfited the North Koreans.
    It is not yet enough, but I should also point out that as 
we have been gradually successful in cutting back the other 
range of revenue streams into North Korea that have been used 
to facilitate the military program there, the relative role and 
influence of China has increased not by virtue of it having 
increased in aggregate terms, but in a percentage of what the 
North Koreans are able to get from the outside world.
    So China's leverage, in a sense, is now greater than ever, 
and we are working very hard to work with Chinese authorities 
to ensure that they live up to their responsibilities as an 
important power and a good citizen in the nonproliferation 
regime to put the pressure----
    Senator Rubio. Dr. Ford, I apologize. We are running out of 
time here. We are going to lose our folks.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you, Mr. Ford, Ms. Poblete. Thank you very much for 
your service. Congratulations on the nominations. And I 
appreciate your willingness to perform the duties before you.
    Thanks, Mr. Chairman, as well, for holding the hearing 
today.
    Mr. Ford, is it the Trump administration's position to seek 
complete, verifiable, and irreversible denuclearization of the 
Korean Peninsula?
    Dr. Ford. That is our objective, Senator. That is correct.
    Senator Gardner. And we talked about in my office whether 
that was China's goal or not. Senator Menendez talked about 
China. What is China's goal, as it relates to the proliferation 
in North Korea?
    Dr. Ford. Well, Senator, speaking only personally and not 
on behalf of the intelligence community or anyone like that, my 
own view is that China is trying to figure out what its goal 
is.
    The working assumption for many of us working on these 
issues has been in the past that China's principal objective is 
to ensure stability in the peninsula and to avoid what they see 
as a kind of parade of horribles: were the Kim regime to 
collapse, were we to get into a war with the North Koreans, or 
whatever else it might be, and that they have hitherto 
concluded that it is better to remain as a kind of grumpy 
facilitator and enabler of the North Korean regime's weapons of 
mass destruction----
    Senator Gardner. But complete, verifiable, and irreversible 
denuclearization of the Korean Peninsula is not China's goal?
    Dr. Ford [continuing]. I do not think it has been, but I 
think they are beginning to reconsider that and realizing that 
if they are, in fact, in favor of stability in the peninsula, 
the time is now for them to join us, because the status quo is 
not one that points toward stability. It points only toward 
increasing risk and danger and uncertainty.
    Senator Gardner. And I think when it comes to that 
proliferation, and the position that China is in right now, it 
is one reason why I was pleased, one of the reasons I was 
pleased, that we moved away from the failed doctrine of 
strategic patience to a new doctrine of maximum pressure.
    And I do believe we have put additional pressures on North 
Korea that were not in place over the past several years. I 
believe we have put pressure on China to help make sure we 
accomplish this CVID goal on the Korean Peninsula and to enlist 
their support in that goal.
    But I am concerned about the slow pace that we have taken 
with China. And again, the doctrine is and should be maximum 
pressure, not maximum cajoling. And so if we can continue the 
pressure on China to the level it should be, we know over 5,000 
businesses that are doing business right now with North Korea 
in China, start ratcheting that pressure up to a degree that we 
have not yet so far, then we will start to see more results as 
a result of the maximum pressure doctrine. So that is a 
discussion we can continue to have.
    How do we achieve the CVID goal then, the complete, 
verifiable, and irreversible denuclearization? How do we 
achieve that strategy? How do we achieve the strategy as it 
relates to China?
    Dr. Ford. Well, I think as I indicated a moment ago, one of 
the steps is to make it very clear through a range of tools to 
emphasize to the Chinese Government the degree to which their 
strategic interest is not, perhaps, what they once assumed it 
to be.
    China's strategic interest, I would argue, and I think that 
recent events are increasingly making this very clear, and I 
hope that they are coming to realize it, their strategic 
interest now is very much aligned with ours in making every 
step possible to ensure that the North Korean regime changes 
its strategic course and adopts a policy of ratcheting back 
rather than ratcheting up the WMD and nuclear threats that they 
present in the region.
    It seems clear to me that the status quo trajectory of the 
peninsula is downhill at an alarming and disturbing rate, and 
that China is now in a position of beginning to realize, 
perhaps not enough and not fast enough yet, but certainly the 
hope is that we can help them come to recognize that the 
circumstances are not what they were say 10 or 15 years ago, 
and that the way to ensure that all the parade of horribles 
they do not wish to see happen, the way to ensure that those 
things do not happen is not to remain as a facilitator, sort of 
a quiet enabler, of weapons of mass destruction and missile 
programs in the Kim regime, but, in fact, to join us in making 
sure that those threats are emphatically put back in the box so 
that the situation is brought back under control.
    Senator Gardner. Now, will you enter into negotiations with 
North Korea outside of the CVID, the complete, verifiable, and 
irreversible denuclearization parameters?
    Dr. Ford. I am sorry. I did not understand.
    Senator Gardner. Will you negotiate with North Korea 
outside of those parameters, the complete, verifiable, and 
irreversible denuclearization?
    Dr. Ford. I do not believe there is any anticipation of 
doing that. What Secretary Tillerson has said is that what we 
are looking for is some kind of an indication of North Korean 
seriousness to be finally willing to sit down and have that 
kind of a conversation. We have not seen that seriousness yet. 
And until such point as we do, we are endeavoring to steadily 
tighten the screws on the North Korean regime to incentivize 
finally making that choice.
    Senator Gardner. In your role of International Security and 
Nonproliferation, could you describe any cyber role that you 
might have?
    Dr. Ford. Well, to my knowledge, Senator, there has not 
been much of one for the bureau hitherto. However, it is one of 
the roles of the bureau to, essentially, scan the horizon, 
speaking metaphorically, for emerging threats and emerging 
areas that may be in need of better nonproliferation norms or 
new nonproliferation norms or institutions or practices in the 
future.
    I know that cyber issues are already emerging as one of the 
subjects for discussion within the Wassenaar Arrangement, which 
is an international dual-use and conventional technology export 
control standards regime. So cyber issues are emerging as a 
subject of increasing emphasis in the nonproliferation world.
    It is not a terribly well-developed discipline at this 
point, but certainly, if confirmed, one of my responsibilities 
at ISN would be to make sure that we had an appropriate handle 
on emerging technologies and challenges out there that may need 
to be addressed in the future in ways, perhaps, analogous to 
how we have tried to address chemical and biological, 
radiological, and nuclear nonproliferation over the years. 
There may well be new areas in which that is very relevant.
    Senator Gardner. Ms. Poblete?
    Dr. Poblete. Yes, thank you, Senator. I would like to start 
with the cyber issue.
    It is my understanding that the Arms Control, Verification 
and Compliance Bureau actually has had a role on the cyber 
issue. We have--the royal ``we''--the AVC Bureau has provided 
support to the cyber coordinator. In fact, the Nuclear Risk 
Reduction Center, which, as you know, is the 24/7, 365-day 
communications hub with respect to verification and compliance 
issues on a broad range of international agreements, was 
directly involved in the notification to the Russian Federation 
of information that we had available that the Russian 
Federation had, in fact, attempted to interfere with our 
elections.
    In addition to that, the Verification and Compliance Bureau 
using the history, the long history, in the implementation of a 
broad range of agreements has also been working with the 
interagency, and with our allied nations, to ensure that we are 
thinking about best practices, that we are thinking about 
emerging security challenges.
    In fact, the AVC Bureau, the Arms Control, Verification and 
Compliance Bureau, has an office in the bureau just dedicated 
to emerging security challenges. And beyond the cyber issue, it 
is also looking at space security and challenges from Russian 
aggression, from Chinese aggression, and attempts to deny 
unfettered access to space by responsible parties.
    And if I may go back to your question and Senator 
Menendez's references, while sanctions implementation and 
development is not in the AVC Bureau, you cannot de-link the 
AVC Bureau from ISN or from the rest of the T family, or from 
any discussion about sanctions.
    Number one, I believe that the AVC Bureau, by developing 
the evidence, confirming and verifying the evidence, builds the 
case to support a policy determination on whether or not to 
impose sanctions.
    Further, by leveraging the threat of sanctions, by 
leveraging the actual implementation and enforcement of 
sanctions, and not just sanctions specifically designed to 
address a particular bilateral or multilateral agreement, but 
that are targeting the other actors, the other parties to those 
agreements, can certainly help fortify and strengthen our own 
capabilities in ensuring that, one, we do have verifiable, 
permanent compliance with the range of commitments and 
agreements. But also, it serves our deterrence objectives, both 
nonproliferation, writ large, and, again, to deter rogue 
regimes or state parties to agreements not to continue their 
aggressive stance.
    Senator Rubio. Thank you, Dr. Poblete. We need to move on. 
I apologize.
    Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    Thank you, both of you, for your willingness to serve.
    Both of you have identified the administration's belief 
that the JCPOA is insufficient in many respects, and the 
administration has made it clear they are seeking to strengthen 
or renegotiate the agreement. It has been a little hard for 
many of us in Congress to get a handle on exactly how the 
administration wants to go about this process, and so I want to 
ask you both about what the administration policy may be, what 
your recommendation may be to the administration or to 
Congress.
    To me, it seems as if there are four ways to go about 
changing the agreement, if you are of the opinion, as this 
administration is, that it needs to be changed. First, you 
could renegotiate with your partner, with the Iranians. Second, 
you could make changes to the agreement unilaterally, but in 
coordination with your European partners, make changes all 
together. You could make changes alone through executive 
actions of the administration. Or you could ask Congress to 
make changes to the agreement.
    And so I want to ask what your recommendation is going to 
be. I will ask you, Ms. Poblete, and then you, Mr. Ford, as to 
what the best course of action should be, if you desire to 
change the terms of this agreement. And most specifically, what 
is your recommendation to Congress? When the President failed 
to certify under INARA, it was unclear whether he was asking us 
to pass legislation that would change the terms of the 
agreement.
    So what is the best course of action to try to address 
insufficiencies that the administration has identified? And 
specifically, are you asking, are you going to be expecting to 
be working with Congress to pass legislation that would change 
the terms of the agreement?
    Dr. Poblete. Thank you, Senator.
    The focus of the AVC Bureau will be, and if confirmed, that 
will be my mantra, my overarching objective, is to whatever 
agreement we have, whether it is the existing JCPOA or a future 
agreement, that we are able to both unilaterally, with our 
allied partners in support of the IAEA, that we are able to 
verifiably confirm or not that Iran is in compliance with its 
obligations.
    Now as a point of personal privilege, in light of my 
background, particularly with respect to Iran, I always found 
it was most useful when there was unanimity of purpose, 
unanimity of mission, from the entirety of the U.S. Government. 
So while I would not have a role on the actual development of 
the administration policy, I would just be feeding the 
information to the policymakers, I certainly would prefer, if 
asked, and would recommend, if asked, and if confirmed, that we 
do work, that the executive branch does, in fact, work closely 
with the Congress, particularly with this committee.
    Senator Murphy. Mr. Ford, I want to ask one more question. 
So let me turn to you.
    What are you asking Congress to do here?
    Dr. Ford. Thank you, Senator.
    What the President said in his October 13th speech is, he 
directed us and the administration to try to work both with 
Congress and with international partners to move forward on 
these issues. And I guess you could sort of think of those as 
two parallel and complementary tracks.
    With respect to the congressional piece of it, there have 
been, actually, a series of ongoing discussions, still, with 
Congress on this topic, in the hope of finding a constructive 
way forward in a number of respects.
    One of them has to do with, as I mentioned before, the 
challenge of the so-called sunset terms of the JCPOA, the fact 
that in I think 8 to 13 years' time now, the restrictions upon 
the size of Iran's nuclear program will sunset, pursuant to the 
terms of the JCPOA.
    From a congressional legislative perspective, it may be 
possible to work with the Congress. We hope that it is possible 
to work with the Congress to change Iran's incentives with 
respect to the choices that it might make.
    Senator Murphy. But are you asking us to do something that 
would violate the terms of the agreement?
    Dr. Ford. Actually, in fact, Senator, we have been asking 
Congress--we have been working very hard to try to make sure 
that the Congress does not do anything that would cause Iran 
immediately to run afoul. We have been trying to resist the 
insertion of so-called poison-pill pieces into the legislative 
framework. The hope is to be able to find a way to incentivize 
Iran to make choices that keep us from having enduring 
proliferation problems in the future, but not to blow up the 
deal.
    Senator Murphy. Let me ask you one thing--thank you for 
that--one quick question on Iran's ballistic missile program.
    I was proud to support the sanctions bill here that levies 
new sanctions on Iran for their ballistic missile program. But 
let's be honest, Iran's ballistic missiles right now are not 
pointed at the United States. They are pointed at Saudi Arabia.
    Simple question: Do you believe that Saudi Arabia's 
military buildup contributes to Iran's motivation to continue 
to develop their ballistic missile program?
    Dr. Ford. I am confident that the Iranians would say so. If 
I were in Riyadh speaking personally, I would be very concerned 
by the path that Iran has taken over the last----
    Senator Murphy. But do you believe that is part of their 
motivation?
    Dr. Ford [continuing]. Frankly, I am not comfortable trying 
to get into the heads of Iranian leaders in that respect. I 
worry that there is an action-reaction dynamic in the Middle 
East, which is one of the reasons why I was so unhappy, 
personally, to see that the Iran deal, in fact, took the steps 
that it did to provide legitimacy to and international 
acceptance of Iranian production of fissile material, for fear 
that that would set in place a further action-reaction dynamic 
that would increase the proliferation pressures elsewhere in 
the region.
    So I think it is part of our challenge as a policy 
community to try to do what we can to put that cat back in the 
bag, as it were. And part of that will be working to provide 
the kind of solidarity against Iran that we hope to achieve by 
working with our international partners across the range of 
Iranian activity. Part of it will be bolstering our 
relationships with others in the region.
    Historically speaking, at least, I think it is the solidity 
of the U.S. security relationship that has over many decades 
since the dawn of the nuclear age been very important to 
helping persuade countries that might otherwise have considered 
indigenous weaponization that that is not necessary, and 
certainly not a wise choice, and that their needs can be met 
through other means.
    I hope we can continue to do that and meet these challenges 
in the Middle East as the years move forward, Senator.
    Senator Murphy. Thank you.
    Senator Rubio. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    I am very concerned to learn that the United States is 
engaged in active, ongoing discussions with both Saudi Arabia 
and Jordan on concluding 123 nuclear cooperation agreements. 
These agreements are essential for ensuring that nuclear 
technologies and expertise that can be used to make nuclear 
weapons do not spread and that nuclear cooperation with the 
United States is not used as a cover, as a hedge against or a 
leg up on one's neighbors.
    And that is especially true in the Middle East, which 
remains a volatile, contentious region plagued by religious 
rivalries and proxy wars. In Iran, we have experienced 
firsthand how incredibly difficult it is to curb nuclear 
proliferation once the ball is rolling inside of that country, 
and the deep, unshakable suspicion that remains about its 
intentions on this committee, across our country, and across 
the world.
    So even as we were moving forward on this effort to curb 
Iran's nuclear program, Saudi Arabia warned that the whole 
region ``could be plunged into a nuclear arms race,'' and that 
if Iran goes for a nuclear program, ``nothing could prevent us 
from doing it, too, not even the international community.''
    So that sounds like a recipe for trouble to me, and I would 
hate for the United States to be further exacerbating those 
tensions, especially in a part of the world blessed with such 
abundant solar and fossil resources that it could power the 
entire region's electricity needs alone, without ever having to 
deal with the complications of nuclear power.
    So the Atomic Energy Act requires the President to keep the 
Senate Foreign Relations Committee ``fully and currently 
informed of any initiative or negotiations relating to a new or 
amended agreement for peaceful nuclear cooperation.'' It also 
mandates that Congress review the terms of any 123 agreement 
and give Congress the power to block these agreements.
    So it seems that, at this point, the Trump administration 
has forgotten this. So I will be sending a letter shortly to 
request a full and immediate briefing on these negotiations.
    But for now, I am going to ask just some questions to try 
to understand better what the current status of these 
negotiations is.
    Mr. Ford--and again, thank you both for your service to our 
country--yes or no, is the United States at present negotiating 
terms of a 123 agreement with Saudi Arabia and Jordan?
    Dr. Ford. Thank you, Senator. We are presently in 
discussions with both the Saudis and the Jordanians about 123 
questions. That is something that is not new. We have been in 
on-again, off-again discussions of that sort for some time, 
certainly predating the current administration.
    But the short answer is, there are discussions underway.
    Senator Markey. Did the Trump administration decide or did 
Saudi Arabia and Jordan approach the Trump administration to 
restart or revitalize the 123 negotiations after January of 
2017?
    Dr. Ford. Actually, the short answer is I do not know who 
spoke with whom first. I am afraid I do not know, Senator. I am 
sorry.
    Senator Markey. Can you describe to us at what stage these 
negotiations are right now?
    Dr. Ford. They are still very preliminary. To my knowledge, 
there has not been any engagement of technical experts at this 
point.
    Senator Markey. So you are saying, at this point, neither 
Saudi Arabia nor Jordan have proposed specific terms or 
responded to terms posed by the United States?
    Dr. Ford. I am, unfortunately, not at liberty to discuss 
these ongoing bilateral discussions in this forum. This is 
something that, perhaps, we would be able to discuss in a 
different context, Senator.
    Senator Markey. Does the Trump administration believe the 
gold standard, the commitment not to enrich uranium or 
reprocessed plutonium, is a requirement in order to conclude 
terms for 123 agreements with these countries?
    Dr. Ford. I would say, Senator, that it remains U.S. 
policy, as it has been for some time, to seek the strongest 
possible nonproliferation protections in every instance.
    Senator Markey. Is that the gold standard?
    Dr. Ford. Well, the strongest that has yet been achieved is 
the gold standard with the United Arab Emirates.
    Senator Markey. Is that your goal, to keep that standard?
    Dr. Ford. I would love to keep that standard in place, if 
we can, Senator.
    Senator Markey. Do you personally believe the gold standard 
is a requirement, in order to conclude a 123 agreement with 
these countries?
    Dr. Ford. It is not a legal requirement. It is a desired 
outcome.
    Senator Markey. Have Saudi Arabia or Jordan asked for terms 
more permissive than the gold standard?
    Dr. Ford. I would go back to my earlier comment, Senator, 
that it would be much easier to talk about ongoing bilateral 
negotiations in a closed forum.
    Senator Markey. If we agreed to anything less than the gold 
standard with Jordan or Saudi Arabia, how do you think the 
United Arab Emirates would respond? The United Arab Emirates 
has been an excellent partner in agreeing to the gold standard, 
but has a legal right under the terms of their 123 agreement to 
drop these nonproliferation provisions if others receive better 
terms. How do you think the United Arab Emirates would respond, 
if there was no gold standard negotiated with Saudi Arabia?
    Dr. Ford. I cannot speak for them, Senator, but I think you 
are quite correct that there is a provision in their 123 
agreement that would allow them to initiate new discussions 
about the terms of their deal were someone else in the region 
to have gotten a different one.
    Senator Markey. Do you believe the administration is 
meeting its requirement to keep Congress fully and currently 
informed about its current 123 negotiations with Saudi Arabia 
and Jordan?
    Dr. Ford. I believe that it is, and that at such point as 
it is possible to have more to say, we would be delighted to 
have that briefing in a closed context, Senator.
    Senator Markey. And if you are confirmed, would you commit 
to briefing this committee on the status of these negotiations 
in a classified, nonpublic setting within 30 days of your 
confirmation?
    Dr. Ford. I would, Senator. As a long-time Senate staffer, 
you can be assured that close cooperation and communication 
with this body, as well as with the House, would be an enduring 
priority of mine.
    Senator Markey. So my problem, Mr. Chairman, with this 
entire area is that there are now auctions in Mexico: 3 cents a 
kilowatt hour for solar--3 cents a kilowatt hour--below coal, 
below natural gas.
    So in Saudi Arabia, the one thing we do know is it is sunny 
365 days a year, and we know that the price of solar has 
completely plummeted. They also are flaring their own excess 
fossil fuels.
    So we are heading into a very dangerous area here. As our 
concern about nuclear proliferation continues to expand in that 
region, we have an agreement that keeps the Iranian program 
under control. But again, what has made it possible for them to 
move forward is the fact that they had already been given 
access to nuclear technology.
    If we continue down this pathway, then there is a recipe 
for disaster, which we are absolutely creating ourselves with 
our own policies. And so I just think it is very important area 
for us to pursue, and I think that this committee should be 
briefed immediately on the status.
    Senator Rubio. And the ranking member has a final question, 
too, but let me just ask real quick, in that vein, we talk 
about the UAE agreement as the gold standard for restraint. The 
JCPOA then happened and it allows Iran to retain and even grow 
its enrichment program.
    Is it your opinion that that agreement has made it harder 
to do more UAE-type deals or easier?
    Dr. Ford. I would say, Mr. Chairman, that the international 
agreement to allow Iran fissile material production capability 
has made it considerably more difficult to ask gold standard-
type agreements, or, indeed, any type of limitations upon 
enrichment or reprocessing technology of others.
    Senator Rubio. All right.
    Ranking Member?
    Senator Cardin. I want to just very quickly comment on 
Senator Markey's and Senator Rubio's points, because I agree 
with both.
    But if we do not draw a line in the Middle East, it is 
going to be all-out proliferation. So I just will express my 
own view, but I think it is of many members of this committee 
and the Senate, that we need to maintain the UAE standards in 
our 123 agreements in that region. There are just too many 
other countries that could start proliferation issues that 
would be against our national security interests and the 
interests of the region.
    So I want to thank Senator Markey for raising that, 
because, yes, we get involved in the process, the earlier, the 
better.
    So as a former staffer here, I look forward to us getting 
engaged before decisions get beyond the point where our only 
option would be to vote against the 123 agreement.
    I want to get to another area, Dr. Ford, that you should be 
very comfortable with, and that is carrying out the intent of 
this committee and the United Sates Senate and Congress in the 
Russia sanction bill that we passed. You have commented on it. 
And I learned a little bit today, that that will come under 
your portfolio, if confirmed.
    And our law is pretty specific. They are mandatory 
sanctions. We give 180 days for improvements in the process by 
the Russian defense and intelligence sector. That expires on 
January the 29th.
    The dates are pretty specific. Are you committed to working 
with this committee and working with--I might tell you, the 
Banking Committee is also very interested in it, Senator Crapo 
and Senator Brown; Armed Services is very interested, Senator 
McCain and Senator Reed; as well as this committee, to make 
sure the law is carried out.
    Will you be working with this committee to make sure that 
that law, in fact, is carried out?
    Dr. Ford. If confirmed, Senator, absolutely, I would.
    The so-called CAATSA sanctions are a new area for me. It is 
not an area that my directorate at the NSC currently deals 
with, so I have been something of a newcomer to this as well, 
and I am trying to learn it as I go along.
    It is very important. I completely agree, it would be very 
important that these things be implemented and be implemented 
well and effectively.
    It is a very complex process. A list of Russian entities 
has been promulgated by the Secretary of State, I believe on 
October 27th or sometime thereabouts, pursuant to a delegation 
of authority that came from the President a month before that.
    So this is a very new and emerging area. It is the 
responsibility of the State Department to identify those who 
have engaged in significant transactions with entities that are 
listed on that list that corresponds to a number of entities of 
the Russian defense and intelligence sectors.
    And then I think it is also the responsibility, once a 
transaction of significance since the effective date of the act 
has been identified, to apply to them a series of at least five 
from a list of as many as 12 penalties to those engaged in 
those transactions.
    While all these determinations are going on, which are both 
complex factual and policy determinations, at the same time, it 
is part of Secretary Tillerson's direction that we would need 
to be coordinating very closely with international partners and 
with other stakeholders in the U.S. interagency to make sure 
that we work with international partners who engage or may have 
engaged or may in the future engage in transactions with 
Russian entities, in order to help them minimize any exposure 
they might have, help them understand how we are approaching 
these things.
    And this is an enormously complex process. It will take a 
lot of doing to put this into place. But I am certainly 
committed to trying to make this work as well as possible.
    Senator Cardin. Let me make this clear. We made it more 
complicated, basically, at the request of our international 
partners and the administration, so they had flexibility. But 
the intent was very clear, that these are mandatory sanctions 
and that they need to be enforced in a timely way.
    So I appreciate that we want to coordinate with our allies, 
and I agree with that. I would hope that some of the 
stakeholders would also include the Members of Congress who 
have been engaged in this process as you go through this 
process.
    But I would just urge you, that January 29th date we expect 
to be complied with. We are not looking for extensions of that 
date. And I would just urge you to be mindful that good faith 
here goes two ways, and there will be other legislation that 
will be considered in the future. And I can assure you that if 
this law is not complied with, some of the discretion that is 
included in this statute will not be included in future 
enactments.
    So it is of good faith, back and forth with the 
administration to have flexibility. But these are mandatory 
sanctions, and they must be applied, based upon Russia's 
behavior. And you have some discretion, but they have to be 
applied, if they have not complied with the law.
    Dr. Ford. Message clearly received, Senator.
    Senator Cardin. One last point on sanctions. Here, I have 
seen similar comments made by the administration about Turkey's 
acquisitions of Russian technology contrary to their NATO 
commitments, but also in violation of the Russian sanction law.
    I understand you may not be prepared to answer that 
question today. But this committee is going to be very 
interested in how we treat a NATO partner violating our Russia 
sanctions provisions, that they make it clear that this is 
mandatory sanctions and sanctions need to be applied, even if 
it is a NATO partner.
    Dr. Ford. The short answer is yes, that sounds like a very 
challenging determination under the statute, but rest assured 
that I fully understand the mandatory nature of the sanctions 
and that this would be a focus of great concern.
    As I mentioned earlier, I think it would be an important 
priority for me, if confirmed as Assistant Secretary, to make 
sure that the staffing and resources of the bureau were 
appropriately aligned to making sure that we are able to do 
that work to which you are referring, Senator.
    Senator Cardin. And, Dr. Poblete, I just want to underscore 
one additional area of concern that has not come out, and that 
is the Russia veto of the joint investigative mechanism under 
the chemical weapons inspection regime. That is going to 
present challenges as to how we enforce the prohibition on use 
of chemical weapons, particularly in Syria, without the 
inspection regime contemplated.
    I note that Ambassador Haley has commented on this, but I 
want to make sure that is on your radar screen, that you have 
an effective way to enforce the chemical weapons bans.
    Dr. Poblete. Absolutely, Senator. It has been on the 
administration's radar screen. It has been on my radar screen 
from the onset.
    I would like to point out that the United States has not 
given up on trying to hold the Syrian regime accountable. I 
would like to point out the meeting of the Executive Council of 
the Organization for the Prohibition of Chemical Weapons that 
took place last week.
    And regrettably, the Russian Federation once again 
demonstrated that it is not a responsible partner and a 
responsible stakeholder internationally, partnering up with the 
Iranian regime to block even accountability at the OPCW 
executive council.
    We are currently engaged in the Conference of States 
Parties of the OPCW. That began yesterday. And I assure you 
that it is a priority for the administration to ensure that we 
have the necessary support and coalition to hold the Syrian 
regime accountable, because we understand that this is not just 
about the Syrian regime's actions, not just about the actions 
of nonstate actors within Syria. This is about sending a 
message to the world that the United States will not stand idly 
by and allow the use of chemical weapons in any theater in any 
scenario by any actor or nonstate actor.
    Senator Cardin. Thank you. And I thank both our witnesses 
again for their response today.
    Senator Rubio. Absolutely. Thank you both for being here 
today and for your service and your willingness to continue to 
serve. I think it has been a very good and informative hearing, 
and I really look forward to moving forward on the process.
    The record for this hearing will remain open for 48 hours. 
And for the members and their staff, the questions for record, 
we hope to have them in by close of business on Thursday.
    So without objection, the hearing is adjourned.
    [Whereupon, at 12:04 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
        to Dr. Yleem D.S. Poblete by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. The defense and protection of universal human rights has 
been an integral part of my professional trajectory.
    For me, there is a correlation between the manner in which foreign 
governments treat their people and the threats they pose to U.S. 
security interests and priorities. A regime which engages in violations 
of the fundamental freedoms of its people, other degrading and inhumane 
treatment, and demonstrates a blatant disregard for the survival and 
welfare of its citizens, will not be concerned about threatening its 
neighbors with missiles or undermining peace and security via the 
pursuit of nuclear, chemical, biological, radiological, advanced or 
destabilizing numbers of conventional weapons.
    As a longtime Congressional staff member, I have been involved in 
the development, negotiation, and implementation of such legislative 
initiatives as the North Korea Human Rights Reauthorization Act, the 
Iran Freedom Support Act, the Iran Threat Reduction and Syria Human 
Rights Act, the Tom Lantos Block Burmese JADE (Junta's Anti-Democratic 
Efforts) Act of 2008, and the Fourteenth Dalai Lama Congressional Gold 
Medal Act. In my capacity as staff of the House Foreign Affairs 
Committee, I exercised continued oversight over the implementation of 
such U.S. laws as the International Religious Freedom Act, the 
Trafficking Victims Protection Act, and the Middle East Partnership 
Initiatives; pressed foreign government officials on their human rights 
records; and worked to highlight the plight of religious and ethnic 
minorities around the world such as Christians in the Middle East, the 
Ahmadiyya Muslims in Pakistan, and the Bah '! in Iran.
    I was fortunate to work on efforts against the lifting of sanctions 
or granting of PNTR to various countries due to ongoing human rights 
abuses and, in some instances, as in the case of the Russian 
Federation, to leverage the repeal of Jackson-Vanik and the granting of 
PNTR to help secure support, in the House of Representatives, for the 
inclusion and adoption of the Magnitsky Act in the final legislative 
package.
    In certain international fora, I worked on advancing the U.S. 
agenda-from ensuring international condemnation of the genocide in 
Darfur; lobbying against adoption of anti-Semitic and anti-Israel UN 
resolutions; convincing foreign ministers from the Middle East and 
North Africa to agree to an Inter-Arab Democratic Charter and support 
the Plan of Action of the Community of Democracies Ministerial; to 
blocking the Libyan, Syrian, and Iranian regimes from assuming 
leadership posts at UN bodies focused on human rights matters (or 
disarmament and nonproliferation).
    There are several ways to measure success in this arena but, on a 
personal level, the most rewarding was when former prisoners of 
conscience, thanked me because a resolution, a bill, a hearing, a 
statement I worked on in helped save their lives.

    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. Helping others realize their potential is a personal 
priority.
    When I think about my service on the staff of the House Committee 
on Foreign Affairs, one of the accomplishments I am most proud of is 
the myriad of other staff members who began as interns or fellows; whom 
I encouraged and supported to pursue advanced degrees; whom I helped 
advance in their careers; and who are actively engaged and succeeding 
in the national security arena. To this day, many seek my advice before 
pursuing new opportunities.
    As a Hispanic, I am a member of an underrepresented group at the 
Department of State. I look forward to the opportunity, if confirmed, 
to use my personal and professional experiences to help address the 
diversity gap which exists at the Department of State and help 
implement the Secretary's vision to convert the Department into a 
reflection of the American people-of our nation.
    If confirmed, I commit to engaging staff to identify professional 
goals and opportunities and to ensure that all personnel, including the 
Foreign Service and Civil Service, are afforded equal access to 
programs for career advancement and development.

    Question 3.  What steps will you take to ensure that each of the 
supervisors in the Bureau of Arms Control, Verification, and Compliance 
are fostering an environment that is diverse and inclusive?

    Answer. I will lead by example. More specifically, I take the issue 
of workforce development very seriously and, if confirmed, one of my 
priorities will be to work with supervisors to identify young talent 
with diverse backgrounds, expertise and training and afford this next 
generation the opportunity to learn from skilled professionals in order 
to develop the full range of skills essential to the vital areas 
covered by the AVC Bureau.
    Together, Civil Service and Foreign Service personnel bring deep 
experience and knowledge to the Bureau. If confirmed, I will welcome 
the expertise of the Foreign Service Officers who add critical 
diplomatic skills and unrivaled connections with our foreign 
interlocutors. Military and other advisors on AVC staff contribute a 
needed perspective to the Bureau's work and help strengthen AVC's 
connections with the Department of Defense and other U.S. agencies. 
Conversely, they return to their agencies with a greater appreciation 
of the important and complementary role of AVC and the State Department 
in the field of national security.

    Question 4.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.
    Question 7.  The latest NDAA conference report stripped all funding 
to the CTBT Preparatory Organization, except for money directed towards 
the International Monitoring System. The administration's budget 
request to Congress provided full funding to the organization. What 
impact do you believe cutting funding to CTBTO will have on U.S. global 
leadership on nonproliferation issues?

    Answer. The administration is in the process of reviewing its 
policy on a number of arms control and nonproliferation issues, 
including the CTBT. Section 1279E of the NDAA conference bill provides 
that no U.S. funds may be made available to the CTBTO Preparatory 
Commission (PrepCom), except for U.S. funds for the International 
Monitoring System (IMS) or U.S. funds used solely for analysis and 
dissemination of data collected under the IMS. As you noted, the 
President's FY 18 budget request fully funds the U.S. planned 
contribution to the PrepCom. I pledge that, if confirmed, I will work 
with Congress to ensure U.S. support for the PrepCom is consistent with 
U.S. law and supports U.S. leadership on nonproliferation issues, 
including international efforts to ensure our ability to detect nuclear 
tests by North Korea and potentially others in the future.

    Question 8.  President Trump has previously stated a desire to 
vastly increase the size of the U.S. nuclear force, with some sources 
articulating he wanted a tenfold increase in our nuclear forces. Do you 
agree with this statement and what impact would that have on strategic 
stability with Russia?

    Answer. Nuclear deterrence remains a foundational element of U.S. 
national strength and security and assures our Allies and partners that 
we can and will meet our extended deterrence commitments. To ensure the 
United States maintains an effective nuclear deterrent, President Trump 
directed the Department of Defense to conduct a new Nuclear Posture 
Review (NPR) to ``ensure that the United States nuclear deterrent is 
modern, robust, flexible, resilient, ready, and appropriately tailored 
to deter 21st century threats and reassure our allies.'' The Department 
of State is participating in the NPR which, when released, will 
establish U.S. nuclear deterrence policy, strategy, and posture for the 
next five to 10 years and guide modernization of the U.S. nuclear 
deterrent for the 21st century security environment. Both Russia and 
China are modernizing their nuclear forces, while North Korea continues 
to advance its nuclear and missile programs. The U.S. nuclear 
sustainment and modernization program is designed to provide a safe, 
secure, and effective nuclear deterrent; assure allies; and preserve 
strategic stability with Russia and China.
    The United States and the Russian Federation held a meeting in 
Helsinki, Finland on September 12 to discuss issues relating to 
strategic stability. The U.S. delegation was led by Under Secretary of 
State for Political Affairs Thomas A. Shannon, Jr. and the Russian 
delegation was led by Deputy Foreign Minister Sergei Ryabkov. The 
discussions provided both sides with an opportunity to raise questions 
and concerns related to strategic stability and to clarify their 
positions.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to Dr. Yleem D.S. Poblete by Senator Edward J. Markey

    Question 1.  Some have asserted that the United States should not 
remain in treaties to which other parties are in violation. Do you 
agree with this sentiment?

    Answer. I would say that it depends on the circumstances. If a 
particular treaty remains in the national security interests of the 
United States, the U.S. should work toward bringing the violating state 
party back into compliance with the treaty.

    Question 2.  Russia is currently testing the boundaries of a number 
of arms control treaties, including the Intermediate-range Nuclear 
Forces (INF) Treaty and the Open Skies Treaty. Do you believe these 
treaties are in the national security of the United States? Are they 
valuable even when they are under duress?

    Answer. The U.S. goal is to preserve the viability of the INF 
Treaty and other arms control agreements as a means of reducing threats 
to the United States and our allies.With regard to the Open Skies 
Treaty, approximately 95 percent of all Treaty flights take place 
without incident. The Treaty gives States Parties the ability to gather 
information through aerial imaging on military forces and activities of 
concern to them. It provides an opportunity to improve transparency 
among the States Parties. Our Allies and partners, over whom the great 
majority of flights take place, believe this transparency is an 
important confidence building measure in Europe, especially during 
times of increased tensions and uncertainty.

    Question 3.  How do we push Russia to bring Russia back into 
compliance with its obligations under these treaties and build 
consensus amongst our European partners about the importance of pushing 
Russia in that direction?

    Answer. Since the United States declared Russia in violation of its 
INF Treaty obligations in July 2014, Russia has refused to engage in 
any meaningful way, and it continues to move forward with the 
production and deployment of the violating system.
    The Trump administration reviewed the intelligence and the steps 
taken by the prior administration regarding Russia's violations of its 
INF Treaty obligations. The administration has engaged in consultations 
with Allies and has embarked on a strategy to press Russia to return to 
full and verifiable compliance with the Treaty. Although this is 
essentially a bilateral treaty, Allies have a common interest in full 
compliance.
    With respect to the Open Skies Treaty, the United States concluded 
earlier this year that Russia is not in compliance with some of its 
Open Skies Treaty obligations. The U.S. has developed and declared a 
set of initial responses that are compliant with our treaty obligations 
and reversible should Russia address its violations.
    Given that this is a multilateral Treaty process, we are working in 
close coordination with our Allies and partners, many of whom also 
greatly value the Treaty for the transparency it provides, particularly 
in this time of heightened tensions, to encourage Russia to return to 
full compliance with its obligations under the Treaty. Although Russia 
continues to facilitate numerous flights per year over most of its 
territory, its violations undercut the confidence building purpose of 
the Treaty and must be addressed

    Question 4.  Do you believe that the United States should exhaust 
all available tools, such as the dispute resolution mechanisms often 
included in these agreements, before deciding to walk away from them?

    Answer. Yes. Since entry into force of the Open Skies Treaty, the 
Unites States has been an active participant in the Open Skies 
Consultative Commission (OSCC) and its Informal Working Groups, which 
are charged with resolving questions that arise in the implementation 
of the Treaty. These mechanisms, augmented by bilateral meetings 
between U.S. and Russian experts, have worked in the past to resolve a 
number of issues. Not so, in recent years. The United States remains 
committed to working with our Allies and partners to consider next 
steps to bring Russia back into compliance with the Treaty.
    With regard to the Intermediate-Range Nuclear Forces (INF) Treaty, 
the United States convened the Treaty's Special Verification Commission 
(SVC) in November 2016 for the first time since 2003 due to Russia's 
unwillingness to engage bilaterally. The United States will continue to 
use diplomacy, including bilateral engagements and the SVC, in an 
attempt to return Russia to compliance.

    Question 5.  The United States and Russia have been trading 
accusations about noncompliance with the 1987 Intermediate Nuclear 
Forces Treaty (INF). We have accused Russia of flight testing a ground-
based cruise missile with a range prohibited by the agreement. In 
December 2017, the two countries held a meeting of the Joint 
Verification Commission, an implementation mechanism established by the 
treaty, to try to resolve the matter, and I understand another meeting 
of this body has been requested and will likely tale place soon.
    The administration has made a number of policy decisions regarding 
how to respond to Russia's violation of the 1987 INF Treaty but has yet 
to publicly describe its strategy. The Wall Street Journal reported on 
November 16 that the Trump administration has begun preliminary 
research on a new, road-mobile ground-launched cruise missile (GLCM) 
that if tested would violate the treaty. The report also indicated that 
the administration has informed Russia of the decision and that 
Secretary of Defense Mattis briefed NATO defense ministers on the 
approach during his recent visit to Brussels. Meanwhile, The Washington 
Post reported that same day that the administration has requested 
another meeting of the treaty's Special Verification Commission (SVC) 
to discuss our compliance concerns.

   On what basis does the administration believe that developing and 
        possibly deploying a new U.S. GLCM will convince Russia to 
        return to compliance with the INF Treaty? Doesn't the 
        development of a new GLCM provide Putin a propaganda victory 
        and a ``legitimate'' reason to blame the US for the collapse of 
        the INF Treaty and begin deploying large numbers of illegal 
        missiles without any constraints?

    Answer. Since the United States declared Russia in violation in 
July 2014, Russia has refused to engage in any meaningful way, and it 
continues to move forward with the production and deployment of the 
violating system. The U.S. continues to seek a diplomatic solution to 
Russia's violation, including continuing to respond to Russia's 
allegations of U.S. noncompliance and considering how best to change 
the current diplomatic deadlock.
    After reviewing the intelligence and the steps taken by the prior 
administration to seek Russia's return to compliance, the Trump 
administration has approved additional U.S. actions to pressure Russia 
to return to full and verifiable compliance. Should Russia return to 
compliance with the INF Treaty, the U.S. is prepared to reverse or 
cease these activities.
    With regard to any military steps, I would defer to the Department 
of Defense. However, the United States takes very seriously its 
commitments under the INF Treaty and complies with those obligations.
    These are steps the Russians are forcing us to take in an effort to 
save a framework that has helped preserve international security for 
decades.

    Question 6.  How did our NATO allies react to the news that the 
United States plans to develop a new road-mobile GLCM that if deployed 
would necessarily be placed in Europe? To your knowledge, are there any 
NATO or East Asian allies that would allow the United States to base a 
new road-mobile ground-launched cruise missile on their territory? If 
the development of a new GLCM becomes a controversial issue within the 
alliance, wouldn't that play into Moscow's efforts to divide the 
alliance and take the spotlight off its violation? ?

    Answer. The United States has closely consulted with Allies in 
Europe and the Asia-Pacific region and will continue to coordinate with 
them on this and other matters that affect our common security. Such 
consultations are held in confidence and we do not release their 
content. I want to highlight and reaffirm what NATO Secretary-General 
Stoltenberg said last month about the Treaty: ``it's extremely 
important that it is fully implemented, so we will continue to call on 
Russia to address the serious concerns in a substantial, transparent 
and verifiable way because the INF Treaty's important for all of us.''

    Question 7.  To help resolve the noncompliance issues, will the new 
administration consider offering transparency measures to address the 
Russian charge that U.S. SM-3 launchers in Europe can contain ground-
launched cruise missiles?

    Answer. The United States is in compliance with its INF Treaty 
obligations. The U.S. takes these obligations seriously. Rather than 
address its own violation, the Russian Federation has raised baseless 
allegations against the United States in a clear attempt to deflect 
attention from Russia's INF-violating system. The U.S. has directly and 
substantively refuted these allegations with Russia on multiple 
occasions and provided our NATO Allies a detailed explanation of why 
U.S. systems are in full compliance with the INF Treaty.
    The Aegis Ashore missile defense system being deployed in Romania 
and Poland is only capable of launching air and missile defense 
interceptor missiles. These missiles are not subject to the INF Treaty. 
Further, the Aegis Ashore system has never contained, launched, or 
prepared for launch any INF-prohibited missile. Therefore, it is fully 
consistent with U.S. obligations under the INF Treaty.

    Question 8.  In testimony to the House Armed Services Committee in 
March, Vice Chairman of the Joint Chiefs of Staff Gen. Paul Selva 
stated that ``There are no military requirements we cannot currently 
satisfy due to our compliance with the INF Treaty.'' Do you agree with 
this statement?

    Answer. I have no reason to disagree with this assessment by the 
Vice Chairman of the Joint Chiefs of Staff on military requirements.

    Question 9.  Over the past several years, the prohibition against 
chemical weapons use established by the Chemical Weapons Convention 
(CWC) has been violated multiple times in Syria. Although the joint 
U.S.-Russian-OPCW operation removed the bulk of Assad's chemical 
weapons arsenal and manufacturing capacity, United Nations Organization 
for the Prohibition of Chemical Weapons (UN-OPCW) inspectors have found 
that the Assad regime and elements of ISIS have used chemical weapons 
and they have done so since the Trump administration struck the 
Government military air base suspected of launching the deadly Sarin 
attack on a village in Syria earlier this year. Unfortunately, Russia 
has irresponsibly opposed efforts by the United States and other 
members of the United Nations Security Council to extend the mandate of 
the Joint Investigative Mechanism to help hold CWC violators in Syria 
accountable.

   What strategy do you believe the United States should pursue to 
        ensure that all states, including Russia, Syria, and others, 
        respect the CWC and allow the OPCW and UN members states the 
        ability to hold violators accountable?

    Answer. The United States is pursuing a multifaceted strategy to 
ensure all States Parties comply with the CWC and deter future use by 
identifying and holding accountable those responsible for the use of 
chemical weapons. The United States continues to lead the effort with 
international partners. Action should be taken in cooperation with 
allies and partners, though the United States should be willing to act 
alone, if necessary. The United States will continue to engage 
diplomatically on chemical weapons issues at both the United Nations 
and the Organization for the Prohibition of Chemical Weapons (OPCW). 
Beyond taking action at the United Nations Security Council, the use of 
General Assembly mechanisms, such as the International, Impartial and 
Independent Mechanism (IIIM) and the Commission of Inquiry on Syria, 
provide additional reinforcing support for attribution efforts. There 
are also other tools available, to include multilateral and domestic 
sanctions, to address CWC violations. Finally, the United States has 
sometimes provided financial support to ensure compliance with, and 
effective implementation of, the Chemical Weapons Convention. To name 
two examples, we did so for the removal of chemical weapons precursors 
from Libya in 2016 for destruction, and are now supporting the OPCW 
Fact Finding Mission, which is investigating suspected chemical weapons 
use in Syria.

    Question 10.  How will do you plan to deal with the demographic 
staffing issues in AVC since 50 percent of the Bureau is eligible to 
retire in the next 5 to 10 years? How will you bring new, young experts 
into the Bureau? How will you enhance gender and diversity balance? How 
will you attract new Foreign Service officers into the Bureau?

    Answer. I take the issue of workforce development very seriously 
and, if confirmed, one of my priorities will be to identify young 
talent with diverse backgrounds, expertise and training and afford this 
next generation the opportunity to learn from skilled professionals in 
order to develop the full range of skills essential to the vital areas 
covered by the AVC Bureau.
    It takes years of experience to build up the reservoir of talent, 
international reputation, and expertise. If confirmed, I will focus not 
only on today's portfolio, but on developing the skills for the future.
    Together, Civil Service and Foreign Service personnel bring deep 
experience and knowledge to the Bureau. If confirmed, I will welcome 
the expertise of the Foreign Service Officers who add critical 
diplomatic skills and unrivaled connections with our foreign 
interlocutors. Military and other advisors on AVC staff contribute a 
needed perspective to the Bureau's work and help strengthen AVC's 
connections with the Department of Defense and other U.S. agencies. 
Conversely, they return to their agencies with a greater appreciation 
of the important and complementary role of AVC and the State Department 
in the field of national security.

    Question 11.  AVC has a number of career civil servants in 
leadership positions. Do you plan to retain those leaders?

    Answer. If confirmed, I will meet with all the staff to gain their 
insight on AVC's needs, challenges and opportunities, relying heavily 
on their creativity, expertise, experience and international 
connections to assess and develop the policy course within the 
Department, the interagency and with the international community. I 
will seek to encourage a diverse and highly skilled workforce that 
brings in the best minds to contribute to U.S. arms control, 
verification and compliance.
    Question 12.  During your confirmation hearing, you indicated a 
belief that the Verification and Compliance bureau should be more 
involved in implementation of the Joint Comprehensive Plan of Action 
(JCPOA).

   Please describe the role you see your bureau playing in 
        implementation of the Joint Comprehensive Plan of Action 
        (JCPOA). Do you believe Iran is meeting its commitments under 
        the JCPOA?

    Answer. The Assistant Secretary of State for Verification and 
Compliance is statutorily responsible for ``the overall supervision 
(including oversight of policy and resources) within the Department of 
State of all matters related to verification and compliance with 
international arms control, nonproliferation, and disarmament 
agreements or commitments.'' (Public Law 106-113-Appendix G). If 
confirmed, I will work with my State Department colleagues on their 
ongoing efforts to ensure that all relevant aspects of the JCPOA are 
rigorously verified, that Iran's compliance is strictly assessed, and 
that any and all violations are addressed. In all aspects of the 
administration's efforts related to the JCPOA, I will work with my 
colleagues to ensure the Bureau's integral role is represented.
    As for whether Iran is currently meeting its JCPOA commitments, the 
President and the Secretary have been clear about their concerns 
regarding the JCPOA, including the need for Iran's strict compliance. I 
share these concerns. While the IAEA has reported that Iran continues 
to implement its nuclear-related commitments under the JCPOA, questions 
remain about authorities and access to Iranian military facilities. The 
administration has made clear that Iran's continuing malign activities 
in the region, including ballistic missile activities and support for 
terrorism, have undermined the expectations set out in the JCPOA that 
the deal would positively contribute to regional and international 
peace and security. The administration further concluded that the 
sanctions relief Iran received as part of the deal is not 
``proportionate'' to the specific, limited-duration measures taken by 
Iran with respect to terminating its illicit nuclear program.

    Question 13.  Do you believe that Article VI of the Treaty on the 
Nonproliferation of Nuclear Weapons (NPT) obligates parties to pursue 
disarmament measures in good faith? What does that mean to you? In your 
estimation, what are some ways that we can strengthen all three pillars 
of the NPT? If the United States decides to build new nuclear weapons, 
how do you think the rest of the world will respond?

    Answer. The administration is committed to the NPT in all its 
aspects, including Article VI. Adhering to this commitment in good 
faith entails pursuing effective measures that can help to create the 
security conditions that would facilitate further progress on nuclear 
disarmament. This approach looks at disarmament within the context of 
the overall security environment and is entirely consistent with the 
NPT.
    If confirmed, I look forward to working with other NPT States 
Parties to maintain and strengthen the Treaty in all its aspects, while 
emphasizing the central role of nonproliferation in achieving the full 
benefits of the Treaty.
    With regard to international reaction to a hypothetical decision by 
the U.S., the administration remains in the process of conducting its 
Nuclear Posture Review, and I would not presume to speculate on the 
outcome of that review or the potential reaction to it. If confirmed, I 
look forward to ensuring that the United States remains at the 
forefront of international efforts to promote nonproliferation and 
effective measures that enhance our security and create the conditions 
that will allow for nuclear disarmament.

    Question 14.  Does the Trump administration believe the ``gold 
standard''--a commitment not to enrich uranium or reprocess plutonium--
is a requirement in order to conclude terms for 123 agreements with 
Saudi Arabia or Jordan? If the United States agrees to anything less 
than the ``gold standard'' with Jordan or Saudi Arabia, how do you 
think the United Arab Emirates would respond?

    Answer. In addition to the legal requirements of Section 123 of the 
Atomic Energy Act, the United States has a longstanding policy of 
seeking to limit the spread of enrichment and reprocessing (ENR) 
capabilities around the world. The Trump administration remains 
committed to seeking the highest nonproliferation standards possible in 
123 agreement negotiations with both Jordan and Saudi Arabia.
    The ``Equal Terms and Conditions for Cooperation'' clause of the 
2009 U.S.-United Arab Emirates (UAE) 123 Agreement provides if the 
United States enters into a nuclear cooperation agreement with another 
non-nuclear weapon state in the Middle East with more favorable terms, 
the United States, at the request of the UAE, will consult with the UAE 
regarding the possibility of amending the U.S.-UAE Agreement. Since the 
United States has not entered into a civil nuclear cooperation 
agreement with a state in the Middle East since 2009, I cannot 
speculate on how the UAE would react to a hypothetical scenario.

    Question 15.  Twenty years ago, the United States was the first 
country to sign the Comprehensive Test Ban Treaty (CTBT), which now has 
183 signatories. The commitment to conclude negotiations on the CTBT 
was critical to securing the indefinite extension of the NPT in 1995, 
and it has been essential to establishing a global norm against nuclear 
weapons test explosions, which are prohibited by the CTBT. Today only 
one state--North Korea--conducts nuclear test explosions.
    But the CTBT has not yet formally entered into force because the 
United States and seven other states have not yet ratified the pact. 
Nevertheless, Democratic and Republican administrations have supported 
the U.S. nuclear test moratorium in place since 1992 and the global 
monitoring system to detect and deter nuclear testing, and we have 
worked hard to prevent the resumption of nuclear testing by others.
    In September 2016, the UN Security Council passed a resolution 
(2310) that was endorsed by 42 countries, including Israel that calls 
on all remaining states to ratify the CTBT and support the global test 
monitoring system. Last year, the three U.S. nuclear weapons lab 
directors reported that they are in a better position to maintain the 
arsenal with their multi-billion system of science-based stewardship 
than they were during the era of nuclear weapons test explosions.

   Are you aware of any technical reason to resume testing to maintain 
        the current warhead types in the U.S. nuclear arsenal?

    Answer. No, I am not.

    Question 16.  While the Trump administration may still be in the 
process of reviewing its policy on the CTBT, will the Trump 
administration support efforts reinforce the global norm against 
nuclear testing, including possible nuclear testing by North Korea, and 
will you pledge, if confirmed for this position, to take steps to 
strengthen the global nuclear test moratorium?

    Answer. The administration has repeatedly called for North Korea to 
cease its nuclear testing activities, and continues to work with our 
international partners to increase pressure on North Korea to do so. If 
confirmed, I commit to calling on nation states to declare and maintain 
national moratoria on nuclear explosive testing.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Dr. Yleem D.S. Poblete by Senator Cory Booker

    Question 1.  The Comprehensive Test Ban Treaty is a cornerstone of 
both the efforts to prevent the spread of nuclear weapons and to verify 
the activities of countries that have nuclear weapons through the use 
of international monitoring. I was pleased to hear that you support the 
continued moratorium on testing. However, the United States has signed 
but not ratified the treaty.

   Does the Trump administration support United States ratification of 
        the CTBT?
   Does the administration support continued American funding for the 
        Comprehensive Test Ban Treaty Organization and the 
        international monitoring stations?

    Answer. The administration is in the process of reviewing its 
policy on a number of arms control and nonproliferation issues, 
including the CTBT. As such, the administration has not made a decision 
regarding ratification of the Treaty.The President's FY 18 budget 
request fully funds the U.S. planned contribution to the CTBTO 
Preparatory Commission (PrepCom), of whose budget, approximately 85 
percent is devoted to developing, operating, and maintaining the 
International Monitoring System and the systems which support it, such 
as the International Data Center. I pledge that, if confirmed, I will 
work with Congress to ensure our support for the PrepCom is consistent 
with U.S. law and supports U.S. leadership on nonproliferation issues, 
including international efforts to ensure our ability to detect nuclear 
tests by North Korea and potentially others in the future.

    Question 2.  The Intermediate Range Nuclear Forces Treaty, signed 
with the Soviet Union in 1987, remains a landmark accomplishment, with 
both sides agreeing to eliminate an entire class of destabilizing 
nuclear weapons. I am dismayed at the recent evidence of Russian 
cheating on the INF treaty, but do not believe that the answer is to 
develop a new class of American intermediate range systems. Rather, I 
believe that we need to bring Russia back into compliance.

   What steps to you and the Department of State plan to take to 
        incentivize Russia to come back into compliance with the INF 
        treaty?
   What are your views on the development of a new American missile 
        system of a range that would violate the terms of the INF 
        treaty

    Answer. Since the United States declared Russia in violation in 
July 2014, Russia has refused to engage in any meaningful way, and it 
continues to move forward with the production and deployment of the 
violating system.
    The Trump administration has reviewed the intelligence and the 
steps taken by the prior administration to seek Russia's return to 
compliance. Following this review, the Trump administration has 
approved additional countermeasures as part of U.S. efforts to pressure 
the Russian Federation to return to full and verifiable compliance. 
Should Russia return to compliance with the INF Treaty, it is my 
understanding that the U.S. is prepared to reverse or cease these 
activities.
    With regard to the military steps, I would defer to the Department 
of Defense. However, I would emphasize that the United States takes 
very seriously its obligations under the INF Treaty and complies with 
those obligations.
    These are steps the Russians are forcing us to take in order to 
save not only the INF Treaty itself, but also the broader arms control 
framework that has preserved international security for decades. The 
goal for the United States is to preserve the viability of the INF 
Treaty by pressuring Russia to return to full and verifiable compliance 
with its INF Treaty obligations.



                               __________


      Responses to Additional Questions for the Record Submitted 
      to Dr. Christopher Ashley Ford by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Probably the most important single contribution I have made 
to promoting human rights and democracy was the role I played in 
helping establish the Office of the Prosecutor at the Special Court for 
Sierra Leone (SCSL) in Freetown, Sierra Leone, in the autumn of 2002.
    The SCSL was established by agreement between the Government of 
Sierra Leone and the United Nations in the wake of the Sierra Leone 
Civil War of 1991-92. The civil war had been a terribly brutal 
struggle, leaving over 50,000 people dead and involving grotesque human 
rights abuses. Human Rights Watch, for instance, reported that rebel 
forces in Sierra Leone ``systematically murdered, mutilated, and raped 
civilians,'' and these forces became particularly notorious for 
intimidating the civilian population by amputating civilians' ``hands, 
arms, legs, and other parts of the body.''
    The SCSL was established after the war ended in order to prosecute 
``persons who bear the greatest responsibility for serious violations 
of international humanitarian law and Sierra Leonean law'' during the 
war. I was asked by the incoming Chief Prosecutor of the SCSL, David 
Crane, to join a group of international lawyers helping him establish 
the Office of the Prosecutor as the new court was being set up in 
Freetown.
    At the time, I was working for Senator Richard Shelby as Minority 
Counsel to the Senate Select Committee on Intelligence (SSCI). I took 
leave from this position in October 2002, however, in order to help Mr. 
Crane set up the prosecutor's office. (U.S. law--specifically 5 U.S.C. 
Sec. Sec. 3353 & 3382--permits federal employees, with their employer's 
permission, to be temporarily detailed to qualified international 
organizations in order to make U.S. Government expertise available to 
them.) I worked at the SCSL for about three weeks as an appellate 
litigation advisor to the prosecutor.
    The SCSL was an important innovation in international humanitarian 
law. While purely international war crimes tribunals already existed 
(e.g., the International Criminal Tribunal for the former Yugoslavia), 
the SCSL was at the time an entirely unique model--a ``hybrid'' court 
established by agreement between a sovereign state and the United 
Nations as a new experiment in how to bring to justice those who had 
brutalized innocent civilians with crimes against humanity. And indeed 
the court was able to break new legal ground in holding such 
perpetrators to account. To date, I believe, proceedings have concluded 
against 21 persons, and eight are still serving sentences for their 
crimes. Most significantly, the SCSL successfully prosecuted former 
Liberian President Charles Taylor, the first African head of state to 
be convicted of war crimes.
    Because of the need to return to my duties at the SSCI, I was 
unable to stay in Freetown for longer. Nevertheless, I am proud of the 
role I played in helping establish the prosecutor's office, and thus in 
helping the Special Court find its footing and begin its important work 
in bringing war criminals to justice.
    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

    Answer. I am committed to enabling professional and personal 
success for all staff under my direction. The Bureau of International 
Security and Nonproliferation is staffed through various employee 
categories, including foreign service, civil service, contractors, 
military detailees, and interns. If confirmed, I pledge to support 
communities of interest in each category in order to better understand 
their unique concerns and to solicit advice for how best to strengthen 
an inclusive, diverse, and supportive working environment for all.

    Question 3.  What steps will you take to ensure each of the 
supervisors in the Bureau of International Security and Non-
Proliferation are fostering an environment that is diverse and 
inclusive?

    Answer. If confirmed, I pledge to work with supervisors and staff 
to strengthen all aspects of management within the bureau, including 
fostering an environment that is diverse and inclusive. I will 
encourage all supervisors to continue advancing their skills as 
managers and leaders through training and developmental activities. I 
will also ensure bureau staff are aware of all channels for employees 
to report concerns without fear of retribution.

    Question 4.  Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 6.  Do you or do any members of your immediate family have 
any financial interests in any country abroad?

    Answer. No.

    Question 7.  The ISN Bureau plays a leading role in preventing the 
advancement of North Korea's nuclear and ballistic missile program.

   If confirmed, what steps will you take to ensure the international 
        community is complying with UN Sanctions regimes?

    Answer. All members of the international community are obligated to 
fully implement the United Nations Security Council Resolutions 
(UNSCRs) on North Korea. The UNSCRs are designed to impede North 
Korea's access to weapons technologies and to block sources of the 
revenue needed to advance its unlawful nuclear and ballistic missile 
programs. The Department devotes substantial resources to support UNSCR 
enforcement activities, and the bureau I have been nominated to lead, 
International Security and Nonproliferation (ISN), plays a leading role 
initiating diplomatic and economic actions to promote and ensure strict 
implementation.
    Over the past year, the Department of State, with strong 
interagency support--including with my own strong support and 
encouragement from the Weapons of Mass Destruction and 
Counterproliferation Directorate at the National Security Council, 
which I have had the privilege of heading since January 2017--has 
conducted multiple rounds of engagement with countries around the world 
to strengthen UNSCR implementation. ISN has engaged, for instance, with 
a range of countries seeking to provide any sort of service to, or to 
be the jurisdiction of record for, a company owning a DPRK-associated 
vessel in order to press them to comply with UNSCR sanctions. The 
Bureau has also targeted DPRK WMD procurements and worked aggressively 
to detect and disrupt suspected North Korea's arms transfers and to 
sever the underlying political and commercial relationships from which 
they result. ISN actively participates in ongoing interagency processes 
through which the U.S. Government employs a broad range of diplomatic, 
economic, financial, law enforcement, and other tools to ensure UNSCR 
enforcement and impede progress on North Korea's nuclear and missile 
programs. If confirmed, I will ensure that this important work to 
impede and counter DPRK efforts continues, and will actively seek ways 
in which to improve the effectiveness of such activity. I will 
vigorously promote compliance with Security Council resolutions in 
regions where North Korea is known to operate, and will work with 
countries around the world to ensure robust implementation of the 
resolutions.

    Question 8.  How can the U.S. verify that these sanctions regimes 
are effective?

    Answer. United Nations Security Council resolutions (UNSCRs) on the 
DPRK contain the strongest set of provisions against Pyongyang yet, and 
end a strong message to North Korea that the international community 
stands united in condemning Pyongyang's continued violations of its 
UNSC obligations and demands the immediate cessation of its unlawful 
nuclear and ballistic missile programs. As countries have improved 
their implementation of these sanctions, the revenue streams upon which 
the North Korean regime depends to fund its weapons of mass destruction 
and missile programs have been increasingly constricted, placing the 
regime under unprecedented stress, while broad international 
counterproliferation cooperation has also limited North Korean access 
to financing, technology, and materials relevant to these threat 
programs.
    We have seen a number of governments take important steps to 
implement the UNSCRs and--in so doing--exert pressure on the DPRK. For 
example, Angola recently announced it had deported DPRK forced 
laborers, Uganda ordered the DPRK to withdraw two proliferation-related 
officials, and Sudan committed to sever arms and commercial ties with 
the DPRK in accordance with UNSCR obligations.
    Overall, the comprehensive UN sanctions regime against North Korea 
now bans over 90 percent of that country's publicly reported exports, 
including coal, textiles, seafood and other items assessed in 2016 at a 
total of $2.7 billion. Since China's ban of coal imports in February, 
the DPRK has forfeited an estimated $805 million in revenue from coal 
exports at current market prices. On August 14, the Chinese Government 
issued a notice announcing a comprehensive ban on the import of coal, 
iron, iron ore, lead, and lead ore from the DPRK, effective August 15 
in compliance with UNSCR 2371. Regional Chinese authorities also 
tightened restrictions on the import of seafood coming from North Korea 
after adoption of UNSCR 2371.
    Furthermore, in light of the immediate and urgent DPRK threat, the 
State Department has led the administration's maximum pressure campaign 
by calling on all countries and working with international partners to 
persuade them to take steps above and beyond UNSCR requirements. We are 
encouraged by the strong measures countries across the world have done 
to answer this call. In Africa, for instance, Equatorial Guinea 
announced the termination of its trade relations with DPRK companies. 
In Asia, Singapore followed the Philippines' lead in terminating trade 
with North Korea. Multiple governments have signaled their concern by 
expelling DPRK officials, thus reducing the size of the DPRK's 
diplomatic presence and downgrading diplomatic relations--which has an 
important signaling effect in addition to its concrete impact in 
reducing North Korea's ability to use diplomatic personnel in illicit 
WMD-related procurement and revenue-generating smuggling activities.
    In addition to individual countries' announced actions, the UN 
Panel of Experts (POE) gathers, examines and analyzes information from 
States regarding the implementation of the UNSCRs, investigates 
violations, and prepares and publishes reports on its findings. The POE 
is an important tool in drawing attention to violations as well as 
reports of implementation, compliance, and activities by UN Member 
States. If confirmed, I will continue to press countries to comply with 
the UNSCRs, provide reports to the POE, and support the POE's efforts 
to monitor UNSCR implementation and investigation violations.
    In short, the UNSCR sanctions regime against North Korea has been 
effective in imposing unprecedented costs and pressures upon the DPRK 
regime, and powerfully supports U.S. and international efforts to bring 
about the end of destabilizing threats from Pyongyang's WMD and missile 
programs. The ISN Bureau has been at the forefront of this work, and if 
confirmed, I will work diligently to ensure that this critical activity 
continues and that we remain constantly active in trying to improve its 
effectiveness further.

    Question 9.  In your estimation, do you believe there is a military 
solution to the North Korea issue?

    Answer. While the State Department has made clear our preferred 
approach of resolving the North Korea matter peacefully, the President 
has said repeatedly that all options are on the table. We are 
constantly reviewing our current posture to better counter the DPRK's 
evolving threat, and we remain firmly committed to seeking a negotiated 
solution if we can. Diplomatic options remain viable and open, and 
indeed it is the purpose of our current campaign to maximize North 
Korean incentives to engage in the kind of negotiations that would be 
necessary in order to roll back its nuclear and missile programs. As 
Secretary Tillerson recently underscored, the United States remains 
committed to finding a peaceful path to denuclearization and to ending 
belligerent actions by North Korea. If confirmed, I will work with our 
allies and partners to deepen cooperation to this end, and to hold 
nations accountable to their commitments to isolate the regime.
    To be clear, however, both Secretaries Tillerson and Mattis have 
unequivocally stated that ``any attack by the DPRK will be defeated, 
and any use of nuclear weapons will be met with an effective and 
overwhelming response.''



                               __________


      Responses to Additional Questions for the Record Submitted 
       to Dr. Christopher Ashley Ford by Senator Edward J. Markey

    Question 1.  The President has threatened to ``tear up'' the Iran 
nuclear deal, the Joint Comprehensive Plan of Action (JCPOA). In your 
current White House role, you are one of the Senior Directors directly 
responsible for advising the President on this issue and- if 
confirmed--you will lead a bureau that plays an important role in 
ensuring Iran is complying with its nuclear commitments under the 
JCPOA. Do you believe the JCPOA is in the U.S. national security 
interest? Is Iran is in compliance with its commitments under the 
nuclear deal?

    Answer. The President and the administration have been clear about 
our concerns regarding the JCPOA. While we share the assessment of the 
International Atomic Energy Agency that Iran continues to implement its 
nuclear-related commitments, we have made clear that Iran's continued 
malign activities in the region, including ballistic missile activities 
and support for terrorism, have undermined the expectations set out in 
the JCPOA that the deal would positively contribute to regional and 
international peace and security. This does not mean that the 
administration believes it is impossible to fix the flaws of the JCPOA 
or that it is time for us to leave the deal. Indeed, pursuant to the 
President's direction and following a review of our policy toward Iran, 
we are continuing to implement our JCPOA commitments, and will continue 
to ensure that Iran strictly implements its own. The President has 
requested that Congress work with the administration to address the 
JCPOA's flaws, including through amending and strengthening the Iran 
Nuclear Agreement Review Act, while continuing to hold Iran accountable 
to its commitments under the JCPOA, and he has directed his 
administration to work with international partners to meet long-term 
Iranian proliferation challenges and prevent Iran from acquiring the 
capability rapidly to produce enough fissile material for a nuclear 
weapon. If confirmed, I would work diligently with international 
counterparts, with U.S. interagency partners, and with the Congress to 
ensure that the strongest possible protections are put in place, on an 
enduring basis, to deny Iran any viable pathway to nuclear weapons.
    Question 2.  Why have the President and other members of his 
administration said that Iran is violating the agreement? Are all other 
parties to the agreement and the International Atomic Energy Agency 
(IAEA)--the world's international nuclear watchdog--wrong in continuing 
to affirm that Iran is complying with its nuclear commitments under the 
JCPOA?

    Answer. The President and the administration have been clear about 
our concerns regarding the JCPOA. While we share the assessment of the 
International Atomic Energy Agency that Iran is implementing its 
nuclear-related commitments under the JCPOA, we continue to be 
concerned that Iran has tried to push limits in the deal and, in the 
past, has exceeded some limits, such as those related to heavy water. 
In addition, Iran's continued malign activities in the region, 
including ballistic missile activities and support for terrorism, have 
undermined the expectations set out in the JCPOA that the deal would 
positively contribute to regional and international peace and security.

    Question 3.  If Iran is violating the deal as the President has 
claimed, why hasn't the United States engaged the dispute resolution 
process laid out in the text of the JCPOA? Some members of the 
administration, including Secretary Mattis, believe it is in the 
national security interest of the United States to remain in the JCPOA. 
Given this, should the United States be trying to exhaust every tool 
available to us--including the JCPOA's built-in dispute resolution 
mechanism--before walking away?

    Answer. The administration has not announced an intention to end 
participation in the JCPOA at this time, and we continue to uphold our 
JCPOA commitments while working with Congress and international 
partners to improve how we meet long-term Iranian proliferation 
challenges. While we do so, we will continue to hold Iran strictly 
accountable to its nuclear-related commitments under the deal. The 
United States continues to engage Iran directly and in cooperation with 
our P5+1 partners to ensure technical implementation of the deal is 
strictly enforced. While to date we have not deemed it necessary to 
invoke the dispute resolution mechanism contained in the JCPOA, we 
recognize it is a tool available to us as appropriate.

    Question 4.  If the United States leaves the JCPOA or continues 
trying to unilaterally change the terms of the agreement either through 
legislation or the threat of re-imposing U.S. sanctions, what do you 
think the implications are for our relationships with other parties to 
the JCPOA such as the United Kingdom, France, Germany, Russia, China, 
Iran and the European Union? Do you think such a step will impact the 
credibility of the United States with these parties and other countries 
around the world? How do you think such a move by the United States 
would impact international nuclear nonproliferation efforts and efforts 
by the United States to negotiate arms control and nonproliferation 
agreements with other countries like North Korea that pose a threat to 
U.S. national security interests?

    Answer. The administration has not announced an intention to end 
participation in the JCPOA at this time, and we continue to uphold our 
JCPOA commitments. While we do so, we will continue to hold Iran 
strictly accountable to its nuclear-related commitments under the deal. 
The President has requested that Congress work with the administration 
to address the JCPOA's flaws, including through amending and 
strengthening the Iran Nuclear Agreement Review Act (INARA). Our allies 
in Europe strongly support the JCPOA and want the United States to 
remain in the deal, and we have made clear that our efforts to 
strengthen INARA are a domestic matter outside the JCPOA. Our European 
partners have signaled a willingness to cooperate with us to address to 
address Iran's malign actions outside the JCPOA and long term Iranian 
proliferation challenges, as well as to continue to work together 
elsewhere where international support remains crucial, such as in 
addressing the threats presented by North Korea.

    Question 5.  Under a proposed re-organization of the State 
Department, the Iran Nuclear Implementation team at the State 
Department, which had previously reported directly to the Secretary, 
would be placed under the ISN bureau you are nominated to lead. Do you 
believe this is the right place for this team? What are your plans for 
this critical office and how do you intend to manage parts of this 
agreement that don't fall within your bureau's purview, such as the 
sanctions issues and engagement with the United Nations?

    Answer. Based upon my previous experience at the State Department 
and my serving on the National Security Council staff, I am a firm 
believer in the principle that the American people are best met when 
organizations and personnel with deep functional and technical 
expertise are able to employ that expertise to address functional and 
technical challenges in foreign and national security policy, in close 
and collaborative coordination with their counterparts who specialize 
in broader regional affairs. The ISN bureau has unique technical 
expertise that provides an important locus for coordinating the strict 
implementation of the Joint Comprehensive Plan of Action (JCPOA) with 
Iran and developing improved ways to ensure that enduring constraints 
are placed upon Iran's ability to present nuclear and missile 
proliferation challenges in the future. If confirmed, I will work 
closely with senior leadership in the Department and key bureaus and 
offices including the Bureau of Near Eastern Affairs, the Bureau of 
Economic and Business Affairs, and the Bureau of International 
Organizations, among others, to coordinate with our friends and allies 
in supporting this strict implementation of the JCPOA and to address 
Iran's destabilizing activities.

    Question 6.  North Korea is one of the most pressing foreign policy 
challenges the United States faces right now. Do you believe 
denuclearization should be a pre-condition for any negotiations with 
North Korea? What is the administration's strategy for rolling back and 
eliminating North Korea's nuclear weapons program? During your 
confirmation proceedings, you indicated that strengthening sanctions on 
North Korea is one of your top priorities if confirmed. How do you plan 
to do this? What do you believe is missing from our current sanctions 
regime against North Korea?

    Answer. U.S. policy is to achieve the complete, verifiable, 
irreversible denuclearization of the Korean peninsula. We have long 
made clear that we will not negotiate our way back to talks, and our 
current maximum pressure campaign is designed to incentivize a North 
Korean decision finally to engage seriously on rolling back the 
destabilizing nuclear and missile threats it presents. We aim to 
demonstrate that North Korea will not achieve the security or 
prosperity it seeks until it changes its current course and returns to 
serious and meaningful talks aimed at denuclearization. The 
administration has made clear North Korea's flagrant violations of 
international law and its disregard for international norms will not 
lead to acceptance as a nuclear-armed state.
    In 2017 alone, North Korea conducted its sixth nuclear test and 
more than 20 ballistic missile launches in violation of its 
international obligations and commitments. Its most recent launch was a 
likely intercontinental ballistic missile, highlighting the direct 
threat that Pyongyang seeks to present to the American homeland. North 
Korea's words and actions continue to demonstrate that it is not 
willing or interested in engaging in serious talks on denuclearization 
at this time. As Secretary Tillerson stated earlier this year, when the 
time comes for talks, it will not be enough for the DPRK to stop its 
program where it is today. North Korea must be prepared to come to the 
table ready to chart a course to ``cease and rollback'' its nuclear 
program.
    In order to help bring this about, we are working hard to 
strengthen sanctions against North Korea, for both multilateral and 
U.S. sanctions play a critical role in our maximum pressure campaign 
strategy to counter the threat posed to the United States by the DPRK's 
prohibited nuclear and ballistic missile programs.
    If confirmed, I will continue to push for strong multilateral 
sanctions against the DPRK at the United Nations. The current sanctions 
regime is unprecedentedly strong, and we will seek more sanctions as 
needed in order to contribute to bringing North Korean threats under 
control. We will also continue to work with partners around the world 
to improve the effectiveness of sanctions implementation, in order to 
ensure that these measures work as well as possible to choke off the 
DPRK's access to revenues, technology, and materials that can support 
development and maintenance of its nuclear and missile programs. We 
continue to press countries around the world to fully implement all UN 
Security Council Resolutions against North Korea--including UNSCRs 
2270, 2321, 2356, and 2371--and to harmonize their domestic sanction 
regimes with our designations on North Korean and third-country 
entities. Since April, we have asked countries around the world to cut 
diplomatic and economic ties, including bilateral trade, with the DPRK. 
In every bilateral relationship we have around the world, we have made 
clear that we expect to see countries reduce these ties, or face 
consequences.
    We are also aggressively using the United States' own 
nonproliferation and DPRK-specific sanctions authorities to target a 
range of North Korean activity, and these efforts will expand as we 
begin implementing the Countering America's Adversaries Through 
Sanctions Act to impose new restrictions on the DPRK and to designate 
individuals and entities that enable the DPRK's illicit activities. 
These actions send a strong signal to the DPRK and third-country 
facilitators that we are watching their activities and will hold them 
accountable. On September 21, moreover, the President announced 
Executive Order 13810, imposing additional restrictions on North Korea 
and expanding the scope of U.S. sanctions authorities, including 
targeting funds the DPRK generates through international trade to 
support its nuclear and missile programs and weapons proliferation.
    If confirmed, I will lead an ISN team that is staffed with 
experienced sanctions and interdiction experts who devote their time to 
leading State operational efforts to detect, prevent, disrupt, stop, 
and/or sanction arms and WMD transfers, related financial transactions, 
sanctions evasion, and other illicit activities. As is widely known, 
the DPRK is very adaptive and skilled at using deceptive practices to 
evade sanctions, so our sanctions posture must therefore also 
continuously adapt to meet this challenge. To maintain our edge, it is 
usually best that we not telegraph specific moves before they occur, 
for this can give the DPRK more time to seek ways around them. If 
confirmed, however, I will ensure that our efforts remain squarely 
directed at the DPRK threat and that we adapt and evolve our approaches 
in order to ensure their ability to meet counterproliferation needs, 
and I will work diligently to improve the effectiveness of this work 
wherever possible.

    Question 7.  Is the United States at present negotiating terms of a 
123 agreement with Saudi Arabia and Jordan? Did the Trump 
administration decide to--or did Saudi Arabia and Jordan approach the 
Trump administration to restart or revitalize--123 negotiations after 
January 2017? Has the United States engaged in discussions on a new 123 
agreement, renewal of a 123 agreement, or modification of an existing 
123 agreement since the start of the Trump administration?

    Answer. The United States has been in negotiations with Saudi 
Arabia on a 123 agreement since 2012, and with Jordan since 2008. While 
both these negotiations have remained open, it has been more than a 
year since any substantive discussions on the respective 123 agreement 
texts have occurred. Separately, administration officials have spoken 
to Saudi counterparts in general terms regarding the Kingdom's nuclear 
power plans and its interest in pursuing U.S. nuclear technology, 
including U.S. legal and regulatory requirements for export of U.S. 
nuclear materials, equipment, and technology. Given the sensitive 
nature of those engagements, it is not possible to say more about these 
contacts here, but the Department would be happy to provide a closed 
briefing for committee staff on the substance of those discussions.
    When the Trump administration came into office, it began a review 
of all ongoing 123 agreement negotiations and civil nuclear cooperation 
policy. That review is ongoing. The United States is also in 
negotiations with the United Kingdom and Mexico on 123 agreements.

    Question 8.  Please describe in as much detail as possible the 
status and tenor of any of the above negotiations.

    Answer. Negotiations with Jordan, Saudi Arabia, the United Kingdom, 
and Mexico are ongoing, cordial, and cooperative. Given the sensitive 
nature of 123 agreement-related engagements, it is not possible to say 
more here, but the Department would be happy to provide a closed 
briefing for committee staff on the substance of those negotiations.

    Question 9.  Does the Trump administration believe the ``gold 
standard''--a commitment not to enrich uranium or reprocess plutonium--
is a requirement in order to conclude terms for 123 agreements with 
Saudi Arabia or Jordan? If the United States agrees to anything less 
than the ``gold standard'' with Jordan or Saudi Arabia, how do you 
think the United Arab Emirates would respond?

    Answer. In addition to the legal requirements of Section 123 of the 
Atomic Energy Act--which include important nonproliferation protections 
such as requirements for materials and facilities security, as well as 
a prohibition upon enrichment or reprocessing of U.S.-origin material 
without U.S. consent--the United States has a longstanding policy of 
seeking to limit the spread of enrichment and reprocessing (ENR) 
capabilities around the world. The Trump administration remains 
committed to seeking the highest nonproliferation standards possible in 
123 agreement negotiations with both Jordan and Saudi Arabia.
    The ``Equal Terms and Conditions for Cooperation'' clause of the 
2009 U.S.-United Arab Emirates (UAE) 123 Agreement provides that if the 
United States enters into a nuclear cooperation agreement with another 
non-nuclear weapon state in the Middle East with more favorable terms, 
the United States, at the request of the UAE, will consult with the UAE 
regarding the possibility of amending the U.S.-UAE Agreement. Since the 
United States has not entered into a civil nuclear cooperation 
agreement with a state in the Middle East since 2009, I cannot 
speculate on how the UAE would react to a hypothetical scenario.

    Question 10.  The Atomic Energy Act (AEA) requires the Executive 
branch keep Congress through this committee ``fully and currently 
informed of any initiative or negotiations relating to a new or amended 
agreement for peaceful nuclear cooperation.'' The AEA also requires 
Congress to review the terms of any 123 agreement and gives us the 
power to block any 123 agreement. How do you interpret this 
requirement? Do you believe the administration is meeting these 
requirements in its current 123 negotiations with Saudi Arabia and 
Jordan? If confirmed as Assistant Secretary for International Security 
and Nonproliferation, will you commit to fully briefing this committee 
on the status of these negotiations in a classified or non-public 
setting within 30 days of your confirmation?

    Answer. The Department is committed to honoring its statutory 
obligations. In accordance with the AEA, the State Department briefs 
the appropriate committees before commencing negotiations on a 123 
agreement. Beyond those statutory notifications, the Department also 
offers periodic briefings as negotiations progress.
    The administration has fully met all legal requirements in 
consulting with Congress regarding longstanding 123 agreement 
negotiations with Saudi Arabia and Jordan. If confirmed, I am committed 
to keeping the committee fully abreast of the status of all 123 
agreement negotiations, and would be pleased to personally brief the 
committee in a classified setting within 30 days of my confirmation.

    Question 11.  Do you believe the United States Government is 
providing adequate funding to the International Atomic Energy Agency 
(IAEA)? Do you believe the United States should increase its 
contributions to the IAEA?

    Answer. The United States works closely with the IAEA and other 
member states to ensure the IAEA has the resources it needs to carry 
out its important work. For the IAEA's 2018 regular budget (as in 
previous years), the United States joined a consensus agreement in the 
IAEA Board of Governors on a revised budget level that was requested by 
the IAEA Director General. The United States contributes 25.5 percent 
of the IAEA regular budget, by far the largest share of any IAEA 
member. In addition to the assessed regular budget, the Department of 
State annually provides approximately $90 million in voluntary 
contributions to support activities that advance U.S. priorities. If 
confirmed, I will look at U.S. contributions to the IAEA to ensure we 
are providing adequate funding.

    Question 12.  Are you aware of any technical reason to resume 
testing to maintain the current warhead types in the U.S. nuclear 
arsenal?

    Answer. No, I am not aware of any technical reason to resume 
nuclear explosive testing at this time to maintain current warhead 
types in the U.S. nuclear arsenal.

    Question 13.  While the Trump administration may still be in the 
process of reviewing its policy on the CTBT, will the Trump 
administration support efforts reinforce the global norm against 
nuclear testing, including possible nuclear testing by North Korea, and 
will you pledge, if confirmed for this position, to take steps to 
strengthen the global nuclear test moratorium?

    Answer. The administration has repeatedly called for North Korea to 
cease its nuclear testing activities, and continues to work with our 
international partners to increase pressure on North Korea to do so. If 
confirmed, I will continue to call on all states to declare, observe, 
and maintain national moratoria on nuclear explosive testing.

    Question 14.  What is the policy of the United States regarding the 
criteria that should be used to evaluate membership bids from non-NPT 
member states to the NSG? Please be specific and please explain how 
such an approach will strengthen rather than weaken compliance with the 
goals and principles of the NSG and of the NPT?

    Answer. The United States believes that the factors for 
consideration of applications contained in the Nuclear Suppliers Group 
(NSG) Procedural Arrangement are sufficient for participation from any 
government. The State Department is working closely with NSG 
Participating Governments (PGs) to identify a path forward on the issue 
of possible membership for states that are not party to the NPT, and if 
confirmed I will continue this effort.
    The NSG and global nuclear nonproliferation regimes are 
strengthened when all major suppliers of nuclear technology abide by 
stringent export control regulations and cooperate in crafting the NSG 
Guidelines that influence the formation of those domestic regulations.

    Question 15.  How would Indian membership in the NSG build on the 
nonproliferation commitments it already made, and has not fully met, on 
the eve of the NSG's September 2008 decision to exempt India from the 
NSG's longstanding requirement for full-scope IAEA safeguards? Be 
specific and use examples.

    Answer. India is a responsible actor in the field of civil nuclear 
power and nuclear nonproliferation. India's likemindedness with Nuclear 
Suppliers Group (NSG) Participating Governments (PGs) is demonstrated 
by the large number of bilateral and multilateral nonproliferation 
commitments and the large number of bilateral nuclear cooperation 
agreements it has signed. Once India becomes an NSG member, it would 
commit to abide by the NSG Guidelines for transfers of nuclear and 
dual-use items, as well as its previous bilateral and multilateral 
nonproliferation and nuclear cooperation commitments.

    Question 16.  As you know, Section 104 of the Henry Hyde U.S.-India 
Peaceful Nuclear Cooperation Act of 2006 requires an annual 
implementation and compliance report regarding a number of issues 
relating the arrangement. This report must, among other things, contain 
an estimate of the rate of production in India of fissile material for 
nuclear explosive devices and whether imported uranium has affected the 
rate of production of nuclear explosive devices. The law requires that 
the report shall be unclassified but may contain a classified annex.

   Can you confirm that there has been no finding of material 
        noncompliance by India with any commitment made by India 
        pursuant to this section of the Hyde Act and that India has not 
        increased its rate of production, or capacity to produce, 
        fissile material for nuclear weapons or other unsafeguarded 
        purposes?

    Answer. Every year since the Hyde Act passed into law, the 
Department of State has provided a report on the nuclear activities of 
India. In the 2017 report, in Part 1: Section 104(g)(1), as amended: 
Information on Nuclear Activities of India, the Department wrote that 
there has been no finding of material noncompliance by India with any 
commitment made pursuant to the Hyde Act.
    In Part 2: Section 104(g)(2), as amended: Implementation and 
Compliance Report, the Department wrote that (SBU) ``Both India and 
Pakistan continue to produce fissile material that can increase their 
nuclear weapons stockpiles.''

    Question 17.  Will you commit to keeping my office and the 
committee ``fully and currently informed'' regarding implementation and 
compliance with this agreement? Will you provide a written copy of each 
annual report as required by Section 104 of the Hyde Act?

    Answer. If confirmed, I commit to keeping your office and the 
committee ``fully and currently informed'' regarding implementation and 
compliance with the Hyde Act and will provide a written copy of each 
annual report as required.

    Question 18.  Do you believe that Article VI of the Treaty on the 
Nonproliferation of Nuclear Weapons (NPT) obligates parties to pursue 
disarmament measures in good faith? What does that mean to you? In your 
estimation, what are some ways that we can strengthen all three pillars 
of the NPT? If the United States decides to build new nuclear weapons, 
how do you think the rest of the world will respond?

    Answer. Article VI of the NPT obligates all States Party to pursue 
negotiations in good faith on effective measures relating to cessation 
of the nuclear arms race and to nuclear disarmament, and on a treaty on 
general and complete disarmament under strict and effective 
international control. The administration is committed to the NPT in 
all its aspects, including Article VI, and is committed to encouraging 
other States Party to fulfil their commitments too. Adhering to this 
commitment in good faith entails pursuing effective measures that can 
help to create the security conditions that would facilitate further 
progress on nuclear disarmament. This approach, which looks at 
disarmament within the context of the overall security environment, 
seeks to address disarmament as a real-world policy problem and is 
entirely consistent with the NPT, the Preamble of which expressly 
envisions easing tensions and strengthening trust among states ``in 
order to facilitate'' disarmament.
    If confirmed, I look forward to working with other NPT States Party 
to maintain and strengthen the Treaty in all its aspects, while 
emphasizing the central role of nonproliferation in achieving the full 
benefits of the Treaty. The widespread benefits of the peaceful use of 
nuclear energy and technology are a great success story of the NPT, 
which is only possible because of a strong nonproliferation regime. We 
will continue to highlight this success and seek opportunities to 
promote building further capacity in this area, consistent with global 
nonproliferation obligations.
    With regard to international reactions to a hypothetical decision 
to build new nuclear weapons, the administration remains in the process 
of conducting its Nuclear Posture Review, and I cannot speculate on the 
outcome of that review or the reaction to it. If confirmed, I look 
forward to ensuring that the United States remains at the forefront of 
international efforts to promote nonproliferation and effective 
measures that enhance our security and create the conditions that will 
allow for nuclear disarmament.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to Dr. Christopher Ashley Ford by Senator Cory Booker

    Question 1.  One of the most dangerous developments of recent years 
has been the proliferation of nuclear weapons in South Asia. Since the 
1998 tests, India and Pakistan have both deployed increasingly 
sophisticated nuclear weapons on a range of platforms. A nuclear war in 
South Asia could easily lead to millions of casualties and the United 
States needs to do everything in its power to prevent such a conflict:

   What are the ISN bureau plans to improve strategic stability in 
        South Asia to move India and Pakistan away from the precipice 
        of nuclear war?
   What are your ideas for slowing or ending the arms race in South 
        Asia?

    Answer. In line with the President's South Asia strategy, we 
continue to encourage restraint in Pakistan's military nuclear and 
missile programs, and to urge Pakistan and India to reduce tensions and 
the risk of conflict. At every opportunity, we raise with India and 
Pakistan the need to engage with each other to ratchet down tensions. 
We do this in informal and in formal discussions, such as by 
encouraging both countries to engage in dialogue, to enact new 
confidence building measures, to adhere to self-imposed nuclear testing 
moratoria, not to mate nuclear warheads and delivery systems, to avoid 
development or deployment of types of weapon or delivery system that 
could destabilize their relationship, to improve nuclear security in 
order to ensure that non-state actors cannot acquire access to nuclear 
weapons or materials, and to exercise restraint aimed at improving 
strategic stability.

    Question 2.  One of the great challenges we face today is the 
spread of dual use technology that enables nuclear or other WMD 
proliferation. In some cases countries lack the capacity to enforce 
their United Nations Security Council Resolution 1540 obligations to 
prevent such proliferation. In other cases, countries ignore the 
proliferation activities of their national companies. We need to do 
everything possible to prevent proliferation:

   Given the role of the Export and Related Border Security Program in 
        improving countries capacities to meet their UNSCR 1540 
        obligations and prevent proliferation, do you have plans to 
        expand that program to other countries where we currently do 
        not have an EXBS advisor?

    Answer. U.S. capacity-building assistance has made important 
contributions to the global nonproliferation regime for many years. The 
EXBS Program currently works in 67 countries, including advanced 
technology suppliers and key transit/transshipment hubs. To support 
cost-effective program implementation and maintain ongoing liaison with 
host governments, EXBS employs 24 in-country advisors, some of whom 
have regional responsibilities. EXBS recently established two regional 
advisor positions for the Middle East and North Africa to support 
expanded assistance to this region. In South Asia, where EXBS has 
robust programming but few advisors, EXBS has been working to increase 
in-country support beginning with the addition of a regional EXBS 
advisor in Colombo, Sri Lanka, in 2016. In countries without an EXBS 
Advisor, EXBS utilizes locally-employed staff, partners with other U.S. 
Government agencies, or engages contractors to execute program 
activities. The EXBS program also periodically reviews export control 
and border security challenges and requirements in key regions of the 
world in order to ensure that its efforts are appropriately focused and 
prioritized upon the greatest needs. If confirmed, I will review our 
overseas EXBS staffing and other programs to ensure we are doing all we 
can to prevent proliferation.

    Question 3.  In the case of countries that willfully ignore 
proliferation by their companies (we can discuss specifics privately or 
in closed session), will you commit to bringing more pressure on them 
to prevent proliferation of dual use technologies?

    Answer. Yes. The Department of State closely monitors such activity 
and works closely with U.S. interagency and foreign partners to address 
such concerns, including by promoting effective implementation and 
enforcement of export controls and UNSC Resolutions, and using tools 
such as interdiction and the use or threat of sanctions to prevent 
shipments of proliferation concern. If confirmed as Assistant 
Secretary, I will ensure that we continue to do all we can to encourage 
countries to abide by their international obligations to halt 
proliferation to programs of concern and to contribute ever more 
effectively, even beyond what U.N. Security Council resolutions 
require, to choking off proliferators' sources of funding, technology, 
and materiel. Where proliferation-facilitating activity occurs, I will 
recommend sanctions against the entities involved when warranted and 
consistent with U.S. legal authorities, in order to spotlight deficient 
export control practices, constrain their ability to conduct business, 
incentivize improved behavior in the future, and signal to all other 
entities that might be considering such misbehavior that involvement 
with proliferation activity entails great cost and risk.

    Question 4.  Starting in 1967, one of the ways that the regions of 
the world have sought to prevent proliferation is to create nuclear 
weapons free zones. The nuclear weapons states can adhere to these 
treaties via protocols. Under those protocols, the United States and 
other NWS would pledge not to use nuclear weapons against, or place 
nuclear weapons in NWFZ regions. The Obama administration in 2011 
submitted the protocols to the nuclear-weapon-free zones (NWFZs) in 
Africa and the South Pacific to the Senate for ratification and in 2015 
it submitted the Central Asian protocol to the Senate as well:

   What is the Trump administration's view of the value of NWFZs?

    Answer. The United States supports, in principle, nuclear-weapon-
free zones (NWFZs) that are consistent with U.S. national security 
interests, are developed in accordance with the guidelines adopted by 
the United Nations Disarmament Commission and are vigorously enforced, 
and evaluates them on a case-by-case basis. The United States believes 
that NWFZs can play an important role in the international non-
proliferation regime by complementing and reinforcing the Treaty on the 
Non-Proliferation of Nuclear Weapons.

    Question 5.  Does the Trump administration support the ratification 
of these protocols?

    Answer. U.S. policy on these protocols is under review.



                               __________





                              NOMINATIONS

                              ----------                              


                      THURSDAY, NOVEMBER 30, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
presiding.
    Present: Senators Rubio [presiding], Young, Menendez, 
Murphy, and Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. The Senate Foreign Relations Committee will 
come to order.
    This is a nominations hearing for Rear Admiral Kenneth 
Braithwaite, who is the nominee to be the U.S. Ambassador to 
Norway; the Honorable Carlos Trujillo, who is the nominee to be 
the U.S. Ambassador to the Organization of American States; the 
Honorable Brock D. Bierman, who is the nominee to be the USAID 
Assistant Administrator for Europe and Eurasia; and Mr. Lee 
McClenny, who is the nominee to be the U.S. Ambassador to 
Paraguay. And we thank all of you for being here today and for 
your willingness to serve our country.
    Today these four nominees are here for very different 
positions, but all are important and are all influential areas 
of U.S. foreign policy. Each of you will have a critical role 
in advancing U.S. policy and objectives in your respective 
posts abroad and here in the United States.
    The Organization of American States describes itself as the 
oldest multilateral regional organization in the world. The 
main pillars of the OAS include democracy promotion, the 
protection of human rights, economic and social development, 
and regional security cooperation.
    Article 1 of the Inter-American Democratic Charter states--
and I quote--the peoples of the Americas have a right to 
democracy and their governments have an obligation to promote 
and defend it. Democracy is essential for the social, 
political, and economic development of the peoples of the 
Americas. End quote.
    It is critical to empower the OAS to fulfill its mission as 
stipulated in that article 1 of the Inter-American Democratic 
Charter and do so by working closely with our regional allies. 
Efforts to continue OAS engagement and security cooperation are 
indispensable to the stability of the region.
    Sadly here in our own hemisphere, we still have dictatorial 
regimes that deprive citizens of their most fundamental rights.
    In Cuba, the Cuban people have not been able to freely 
elect their leaders in 65 years and live under an oppressive 
regime.
    In Venezuela, the erosion and now cancellation of democracy 
and freedom is truly tragic and catastrophic and has led to a 
humanitarian disaster.
    In Nicaragua, we recently saw shocking reports of 
executions carried out by the military, including against 
innocent civilians.
    Our hemisphere clearly still has many challenges to 
overcome before the democratic ideals of the OAS charter can 
fully be realized for all the people of the Americas.
    Moving on to Paraguay, we see a nation that plays a key 
role in joint efforts to promote and strengthen democracy, 
security, and counternarcotics. Under the leadership of Admiral 
Tidd, Commander of the U.S. Southern Command, the United States 
has supported efforts to fight transnational crime and 
counterterrorism in Paraguay. We must continue to build on our 
partnership with Paraguay, which is vulnerable to illicit 
trafficking of narcotics, weapons, illegal goods, and people.
    The tri-border area where Argentina, Brazil, and Paraguay 
meet is a place where illicit financing for criminal 
organizations and terrorists exists, terrorists including 
Hezbollah, and this has long been a concern. The U.S. needs to 
work with all three countries that share a responsibility for 
the tri-border area to better secure borders, reduce illicit 
trafficking, and improve counterterrorism monitoring.
    Although Paraguay has made extensive progress in fighting 
corruption, it is still ranked 123 out of 176 in the 
Transparency International Corruption Perceptions Index for the 
year 2016.
    The U.S. is also an important trading partner for Paraguay. 
We should look for new ways to expand our trade relationship 
and help Paraguay grow their economy and strengthen their 
government institutions.
    Norway is one of our closest and most active security 
allies, especially given that its population is only 5 million 
people, or roughly the same size as where I live in south 
Florida. As a founding member of NATO, Norway has fought with 
us in conflicts ranging from the Balkans to the present day 
operation in Afghanistan. It is also an important contributor 
to the fight against ISIS, putting boots on the ground in 
Jordan to help train Syrian freedom fighters.
    Beyond our security alliances, Norway shares our concerns 
about Russia's aggression and interference, particularly given 
that long border that the two countries share.
    Norway is an important contributor in other regions, 
including in our own western hemisphere. Oslo, for example, has 
pledged $22 million over 3 years to fund humanitarian demining 
in Colombia to support the peace process.
    And lastly, the United States Agency for International 
Development plays a critical role in promoting American 
interests and values abroad by supporting the advancement of 
freedom, human dignity, and development. In particular, USAID's 
Bureau for Europe and Eurasia is working to foster resilient 
and democratic societies, strengthen economic growth, and to 
support European-Atlantic integration. We have seen countries 
in the region such as Croatia and Montenegro graduate--that is 
in quotes--``graduate'' from U.S. foreign assistance. This is 
the objective. Our foreign assistance is critical towards 
building sustainable economic and security partnerships that 
not only improve the lives of citizens of these countries but 
also are in our own national security interests.
    As Vladimir Putin's malign influence continues to spread 
throughout the region, particularly in nations already 
suffering from rampant corruption and organized crimes, the 
United States must be engaged and proactive in securing our 
interests and in promoting peace and prosperity throughout 
Europe and Eurasia.
    Although USAID's challenges can be overwhelming, especially 
with increased Russian activities in the region, the Bureau for 
Europe and Eurasia that you will be overseeing, if confirmed, 
is more important than ever.
    So in closing, all of these positions have a key role to 
play in American foreign policy, and I thank you and I thank 
your families for your commitment to your country and your 
willingness to serve it.
    And now I turn to the ranking member.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    And let me congratulate all our nominees on their 
nominations.
    I continue to be concerned about the slow pace of 
nominations from the President and the vacancies at the State 
Department, at USAID, and at critical posts overseas. So I 
welcome this opportunity to hear from nominees for the western 
hemisphere and for positions that stretch the definition of the 
western hemisphere far beyond even my imagination.
    But we welcome you here, all. And we are happy that the 
committee is actually serving as a vehicle for moving your 
nominations.
    While you have been nominated to serve in a range of 
positions, you are all signing up for the same fundamental 
duty: to serve the interests of the United States of America, 
the American people, and to promote our foreign policy 
objectives through diplomacy and development.
    As a 25-year veteran of both the House and the Senate 
Foreign Relations Committee, I can think of no other position 
that is more significant in terms of both national security and 
national interests than the positions that our diplomats serve 
abroad and our development people serve as well. So it is a 
high calling.
    I also appreciate your families because these positions are 
a sacrifice not only of yourselves but of your families, and we 
appreciate that reality as well.
    And while we have several nominees beyond the normal 
jurisdiction of the committee, let me just say the OAS, as a 
longtime observer and someone who considers himself a Latin 
Americanist, is an incredibly important position. It is a 
position for which I believe we need vigorous leadership in an 
institution that also needs greater reforms. I am proud to have 
sponsored legislation that was signed into law in 2013 that 
urged management reforms at the OAS. And I am pleased to see 
that the OAS has taken some of these reforms on, including its 
strategic vision plan that aligns with parts of the law, but I 
think we can agree that probably more can be done. So I look 
forward to hearing from you in that regard.
    Also, the hemisphere--while we enjoy overwhelmingly 
democracy, there are challenges. And there is a backward slide. 
And I am really concerned about what happens at the OAS as an 
institution to move particularly the democratic charter of the 
OAS as a vibrant document, one that is living in its purpose, 
not simply as part of an overall aspirational goal versus 
something that is being pursued. And so I appreciate that.
    I appreciate the AID work. I have long been a supporter of 
USAID. I think the development work we do is an important part 
of our national security and diplomacy interests and that 
without it, I think we cannot achieve many of the goals that we 
seek to achieve in the world. So I look forward to hearing from 
you.
    And Norway. You know, it is one of those places in the 
world where often when we do not have trouble, so we do not 
talk about that country. But it is an incredibly important 
country. It has one of the largest sovereign wealth funds in 
the world and also incredibly important in terms of the 
challenges that we have with Russia. So I look forward to 
hearing from you very much so in that regard, as well as with 
Paraguay.
    As we are trying to develop this hemispheric further 
consolidation of democracy in the process. It may be in some 
people's minds a small country. I think it is an important 
country as it relates to that overall effort.
    So I look forward to hearing from all of you. I will save 
the bulk of my time for questions.
    And with that, Mr. Chairman, I look forward to the 
witnesses' testimony.
    Senator Rubio. Thank you to the ranking member. And you are 
right that the scope is broader. This is actually a hearing of 
the full committee being chaired and co-chaired by two Cuban 
Americans, which is a trend. Three would be a conspiracy. 
[Laughter.]
    Senator Rubio. But Senator Cruz is not a member of the 
committee.
    All right. So let us begin with the nomination of Rear 
Admiral Kenneth Braithwaite. I am sorry. Let us begin with the 
nomination of Mr. Bierman. And Ambassador Pamela Smith, who 
served in the Foreign Service for over 30 years, including a 
stint as our U.S. Ambassador to Moldova, is here, and I would 
like to recognize her to introduce Mr. Bierman.

                STATEMENT OF HON. PAMELA SMITH, 
               FORMER U.S. AMBASSADOR TO MOLDOVA

    Ambassador Smith. Thank you very much, Senator Rubio, 
Senator Menendez. It is a great honor to be here to introduce 
Brock Bierman.
    He is really ideally suited to be USAID's Assistant 
Administrator for Europe and Eurasia. In over 30 years in the 
Foreign Service, I have not met anyone whose talents, 
experience, and dedication better match the demands of this 
challenging job.
    Brock was chief of staff for the same bureau when we first 
met in 2003 when I was Ambassador to Moldova. With his hard 
work in Washington, our outstanding USAID mission helped that 
friendly, struggling little country cope with the grueling 
transition from East to West and from communism to democracy 
and a market economy, a journey that is regrettably not yet 
complete. I could not have been more impressed with Brock's 
pragmatism, tenacity, and sensitivity to the dynamics of the 
complex political environment.
    I could also see that while his heart and some family roots 
were in Moldova, his results-oriented approach made him just as 
effective in the entire region.
    Brock brings not just 5 years of success in the same bureau 
he has been nominated for. He also is committed philosophically 
to foreign assistance as a key tool of foreign policy as a 
national security priority. With Russia playing, as you said, 
an aggressive and pernicious role in the region and with 
violent extremism and destabilizing floods of refugees on the 
rise, we need people working there with seasoned expertise, 
people like Brock who can gauge trends and use our assistance 
to help consolidate democracy and combat the fracturing of the 
West.
    Since the breakup of the Soviet Union, 12 of the 24 country 
programs receiving assistance from USAID's Bureau of Europe and 
Eurasia have graduated, as you noted, and joined the Euro-
Atlantic community through such institutions as NATO and the 
EU. I spent much of my career in the Balkans, and believe me, 
this is an astounding track record. The next 11 countries will 
be much harder, but it seems to me that someone who knows the 
region, the bureau, the agency, and the Administrator well has 
the best chance to build on this success.
    Brock and I have stayed friends since our time advancing 
U.S. interests in Moldova. I just want to share a few more 
words about him.
    His engagement in the region preceded his first assignment 
in USAID and continued after he left the agency. This region is 
his personal passion. You should know that he served three 
terms as a State legislator in Rhode Island, and thus grasps 
the special relationship between government institutions and 
legislative bodies. He has also owned and operated several 
small businesses and has sat on many nonprofit boards and 
commissions. He knows how things work, how to make them work, 
and he has developed people skills that suit many 
circumstances.
    His experience outside the beltway also gives him a unique 
ability to think outside the box. Importantly, he thoroughly 
believes in bipartisanship. Our friendship would not exist 
otherwise. His work with you will prove this immediately.
    We are lucky to have someone of Brock's caliber put forward 
for this important position. He has my unqualified endorsement. 
He will serve the United States well and honorably, and I urge 
you to support his nomination. Thank you.
    Senator Rubio. Thank you so much.
    So let us begin. Mr. Bierman, thank you for being here and 
your willingness to serve and you are recognized.
    By the way, for all the nominees, your opening statements 
are already in the record. So it will not be held against you 
if you abbreviate it. It will not be held against you if you 
skip them. I am not asking you to, but obviously, the shorter 
they are, the more time we will have to interact with all of 
you. So just a suggestion. It will not count against you.
    But anyway, thank you for being here, and you are 
recognized, sir. Thank you.

   STATEMENT OF HON. BROCK D. BIERMAN, OF VIRGINIA, TO BE AN 
    ASSISTANT ADMINISTRATOR OF THE UNITED STATES AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Bierman. Thank you and good morning, Mr. Chairman, 
Ranking Member, and members of the committee. Actually I can 
take out the sentence about full statements being entered 
because I did shorten it.
    Well, I just want to say I am grateful for the opportunity 
to testify before you today as President Trump's nominee to be 
Assistant Administrator for the Bureau for Europe and Eurasia 
at USAID. I would like to thank President Trump, Administrator 
Green, and Secretary Tillerson for their support.
    I would also like to thank Acting Assistant Administrator 
Margot Ellis, who is here today, who has led the bureau since 
January, and her staff who were invaluable as I prepared for my 
hearing. Having spent more than 5 years working in the Europe 
and Eurasia Bureau from 2002 to 2007, it has been wonderful to 
reconnect with many former colleagues.
    And of course, I want to thank Pamela Smith, Ambassador 
Smith, for her kind introductory remarks. Ambassador Smith's 
work in Moldova has demonstrated the importance of American 
leadership, and she has been a mentor of mine since we met.
    Most importantly, I want to thank my family, my wife and 
best friend of more than 30 years Lisa, who is sitting behind 
me, and my children Allison and Robert, who are sitting behind 
my wife. They are the most important inspiration, and without 
their love and support, I would not be sitting here today.
    I want to start out by telling you that I am a second 
generation American. My grandfather came to the United States 
in 1906 from what now is the Republic of Moldova. He quickly 
learned what it meant to live in this country and what made our 
country great. He understood the importance of our democratic 
systems and volunteered to serve his new country during the 
First World War. Upon returning from the war, he served his 
community as a leader and philanthropist.
    And to quote one of America's leading historians, David 
McCullough, in his recent book ``The American Spirit,'' he 
said--and I quote--``history is about who we are and what we 
stand for, and it is essential to our understanding of our role 
and what it should be in our time.'' In many ways, I sit here 
today as a direct result of who we are as a country. My 
grandfather exemplified the American spirit, which I believe 
defines this nation and is at the heart of what USAID does.
    In 1997, while serving in the Rhode Island State 
legislature, I participated with an exchange program with the 
American Council of Young Political Leaders, a nonpartisan 
organization that introduces next generation leaders to 
politics and governance of other countries. Knowing that my 
grandfather lived within the Russian Empire, I decided to 
participate in the Russian exchange program, and interacting 
with Russian legislators at the time not only gave me a new 
perspective on my job as a State legislator but also was the 
beginning of my passionate interest in the region.
    I returned to Eastern Europe in 1999 when Senator John 
Chafee made it possible for me to join the International 
Republican Institute as a volunteer trainer in Ukraine. While 
traveling from Kyiv to Odessa, I shared my own experience with 
democracy and helped Ukrainians of all parties learn more about 
our system of government.
    In 2002, I was privileged to serve as chief of staff for 
the Europe and Eurasia Bureau, and while at USAID, I developed 
a region-wide initiative that brought young people together 
from different political parties to talk about problems facing 
the region and how to solve those problems. If confirmed, I 
look forward to continuing these efforts.
    While at AID, I was also proud to support opportunities for 
professional development and training of our staff. If 
confirmed, I will support every member of the Europe and 
Eurasia Bureau through professional development, capacity 
building, and training.
    Now, as you know, Ambassador Green has said USAID's 
objective is to end the need for foreign assistance. And I am 
excited to advance this priority. If confirmed, I look forward 
to working with you. I look forward to working with 
Administrator Green and the dedicated staff in the E&E Bureau 
to support U.S. national security interests.
    I also think that Administrator Green's priority to respect 
the taxpayers' investment in foreign aid is critical. If 
confirmed, I look forward to ensuring USAID's programs in 
Europe and Eurasia are effective and efficient while also 
demonstrating how USAID's work brings stability and prosperity 
overseas, which in turn benefits neighborhoods across America.
    I also look forward to spending time listening to my 
colleagues both here in Washington and in the field, as their 
perspectives will be vital to developing a successful course of 
action.
    The challenges of Europe and Eurasia look a lot different 
now than they did when I was previously at USAID. The 
challenges cannot be overstated. The region has been hit with a 
major economic recession. Russia's malign influence is a 
serious problem. Russia has violated the territorial integrity 
of Georgia and Ukraine and is interfering with the internal 
affairs of several other countries in the region. In many ways, 
our efforts to counter this pervasive undercurrent will also 
serve to prevent the spread of violent extremism in Europe and 
Eurasia. As Administrator Green has stated, terrorist groups 
often feed on frustration and despair. The American spirit and 
the ideals that it reflects is our most valuable export. It 
serves as a counter to this frustration and despair.
    The Europe and Eurasia Bureau faces other critical 
challenges such as government corruption, weak economies, 
fragile democratic institutions, and the energy dependence on 
Russia. I look forward to exploring those topics in greater 
depth today and working with your staff to answer any questions 
you might have. If confirmed, I look forward to working with 
you to address these critical issues.
    And in closing, I wish to thank the committee for their 
dedication to the American spirit. Thank you.
    [Mr. Bierman's prepared statement follows:]


                  Prepared Statement of Brock Bierman

    Mr. Chairman, Ranking Member, members of the committee, I am 
grateful for the opportunity to testify before you today as President 
Trump's nominee to be Assistant Administrator for the Bureau for Europe 
and Eurasia (E&E) at the U.S. Agency for International Development 
(USAID). I would like to thank President Trump, Administrator Green, 
and Secretary Tillerson for their support, and for the confidence they 
have placed in me.
    I would also like to take this opportunity to thank Acting 
Assistant Administrator Margot Ellis, who has led the Bureau since 
January, her staff, and the staff within the Legislative and Public 
Affairs Bureau all of whom were invaluable help as I prepared for this 
hearing today. Having spent more than five years working within the 
Europe and Eurasia Bureau from 2002-2007, it has been wonderful to 
reconnect with so many knowledgeable professionals, many of whom were 
colleagues during my first appointment. And of course, I thank my good 
friend Ambassador Pamela Hyde Smith for her kind introductory remarks; 
Ambassador Smith's work in Moldova demonstrated the importance of 
American leadership, and she has been a mentor ever since.
    Most importantly I want to thank my family--my wife and best friend 
of more than 30 years Lisa, my daughter Allison, and my son Robert. 
They are my most important inspiration and without their love and 
support, I would not be sitting here today.
    I am a second-generation American on my father's side, as my 
grandfather came to the United States as part of the mass immigration 
of the late 19th early 20th century. He immigrated to this country 
during a turbulent time in Russian history, and came from what is now 
the Republic of Moldova. He came to America with the hopes and dreams 
to make a better life for himself and his family. And although I never 
knew my grandfather, my father told me that he quickly learned what 
made our country great. After only a few short years in America, he 
understood the importance of our democratic systems, and volunteered to 
serve his new country during World War I. Upon returning from the war 
and throughout his life, he served as a community leader and 
philanthropist.
    David McCullough said it best in his recent book, The American 
Spirit. To quote him, ``History, I like to think, is a larger way of 
looking at life. It is a source of strength, of inspiration. It is 
about who we are, and what we stand for, and it is essential to our 
understanding of what our role should be in our time. History, as can't 
be said too often, is human. It is about people and they speak to us 
across the years.'' In many ways, I sit here today as a direct result 
of who we are as a country. My grandfather exemplified the American 
Spirit, which I believe defines this nation, and is at the heart of 
what USAID does.
    In 1997, while serving my second term in the Rhode Island State 
Legislature, I was chosen along with another colleague to participate 
in an exchange program with the American Council of Young Political 
Leaders (ACYPL), a non-partisan organization that introduces next 
generation leaders to the politics, governance, policy-making, and 
cultures of countries around the world through on-site exchanges. 
Knowing that my grandfather lived within the Russian Empire, I decided 
that this was the country and region I wanted to get to know better. 
Participating in the ACYPL program in Moscow and interacting with 
Russian legislators not only gave me a new perspective that made me a 
better legislator, but it was also the beginning of my passionate 
interest with the Europe and Eurasia region.
    My understanding of the region further deepened when I returned to 
the region in 1999, this time to Ukraine as a volunteer trainer for the 
International Republican Institute, (IRI). A former U.S. Senator, John 
Chafee, had encouraged me to run for public office and serve in the 
State Legislature. Senator Chafee was a dear friend and mentor, and his 
influence made it possible for me to join IRI as a trainer. While 
traveling from Kyiv to Odessa, I enjoyed the opportunity to share my 
own democratic experiences and help Ukrainians of all parties learn 
more about our system of government.
    Three years later, in 2003, I was privileged to serve as Chief of 
Staff for the Europe and Eurasia Bureau under Dr. Kent Hill, and spent 
the next five years dedicating my life to USAID's mission. During that 
time, I helped Dr. Hill advance the Bureau's top priorities, and 
specifically assisted with improving the Bureau's outreach and 
communications. I also worked to develop a region-wide initiative that 
brought young people together from all of our partner countries, and 
from different political parties to talk about difficult problems that 
were facing the region and how to develop solutions they could apply 
from the local to regional levels. Youth programming was a top priority 
then, as it is again today, and, if confirmed, I look forward to 
deploying that experience to continue these efforts.
    I was also involved with the Bureau's Trafficking in Persons 
initiatives, and served as a member of the State Department's 
Trafficking in Persons Task Force. Further, I am proud of my work to 
support capacity-building within the Bureau to create opportunities for 
professional development and training for our staff. If confirmed, I 
look forward to supporting every member of the Europe and Eurasia 
Bureau through professional development, capacity building, and 
training.
    Although some of the same overall issues remain today, the 
challenges in Europe and Eurasia look a lot different now than they did 
when I previously served at USAID. The scale of challenges that are 
facing Europe and Eurasia is hard to overstate. Since my previous 
tenure with USAID, the region has been hit with a major economic 
recession. Russia has violated the territorial integrity of Georgia and 
Ukraine, and continues to have a military presence in Moldova. At the 
same time, Russia is interfering with the internal affairs of several 
other countries in the region. Putin's propaganda is exploiting ethnic 
divisions in the Balkans, furthering democratic backsliding throughout 
the Balkans.
    If confirmed, I look forward to working with Administrator Green 
and the dedicated staff in the Europe and Eurasia Bureau to continue 
USAID's tradition of supporting U.S. national security interests, with 
the aim of eventually transitioning countries in the region from U.S. 
assistance, along a positive path that will reduce these threats.
    Administrator Green has set a clear path forward for USAID, and I 
am excited to advance his priorities. Clearly, USAID's objective to end 
the need for foreign assistance should be a goal the Agency keeps in 
mind during its strategic planning and budgeting, and as it works with 
our host countries. USAID's host countries do not believe in 
everlasting assistance either, but look forward to the day when they 
can stand on their own and be respected contributing partners in the 
world community. Increasing USAID's investments with local 
organizations to build capacity is a key part of this process.
    I also think that the Administrator's priority to respect the 
taxpayers' investment in foreign aid is critical. If confirmed, I look 
forward to shaping USAID's programs in Europe and Eurasia in an 
effective and efficient manner, by using more innovative award 
mechanisms, while also educating our public on how USAID's work brings 
stability and prosperity overseas, which in turn benefits neighborhoods 
across America. Finally, I look forward to spending some time listening 
to my colleagues both here in Washington and those in the field, and 
learning from their experiences. Their perspective will be vital to 
developing a successful course of action.
    As mentioned earlier, Russia's malign influence is a serious 
problem throughout the region, one that has developed since my last 
appointment. In 2014, I saw firsthand the open cooperation between 
Moldovan politicians and Russian government officials during the 
parliamentary elections. Many countries in the region are vulnerable to 
Russian influence because of their weak economies, corrupt public 
officials, and fragile democratic institutions. With assistance from 
the U.S. Government and USAID, I believe we can support countries that 
are committed to pursuing the Euro Atlantic path, and help them build a 
bright future of self-sufficiency, rather than dependence.
    Since my first visit to Russia 20 years ago, I have had the 
opportunity to meet with many Russian citizens and talk openly about 
their hopes and dreams. It never ceases to amaze me how similar we all 
are on so many levels. I know that, on a personal level, many Russians 
share our vision for open democracy, fair and free elections, and a 
future in which all citizens have a chance for a better life. I believe 
we must remember that it is the Government of Vladimir Putin, rather 
than the people of Russia, that is trying to undermine our work with 
democracy and governance in the region.
    In many ways, the efforts we must undertake today to counter this 
pervasive undercurrent will also serve to prevent the spread of violent 
extremism in Europe and Eurasia. We are all aware of the alarming rise 
of violent extremism which has led hundreds to travel to fight 
alongside ISIS. As Administrator Green has stated, terrorist groups 
often feed on frustration and despair. The American Spirit, and the 
ideals which this reflects, of equality, rights, and consent of the 
governed, is our most valuable export, and serves as a counter to this 
frustration and despair.
    Although I touched on several of these issues earlier, I could go 
on about other critical issues, such as prevalent government 
corruption, border security, mass migration, human rights violations, 
energy dependence on Russia, lack of open markets and youth 
unemployment. I look forward to exploring those topics in greater depth 
today, and to answering any questions you might have.
    In closing, I wish to thank the committee again for your dedication 
to the American Spirit we all share. If confirmed, I look forward to 
working with you to further our shared goals and address the critical 
issues facing the Europe and Eurasia region. Thank you.


    Senator Rubio. Thank you.
    Admiral Braithwaite, thank you for being here.

STATEMENT OF REAR ADMIRAL KENNETH J. BRAITHWAITE, USN (RET), OF 
       PENNSYLVANIA, TO BE AMBASSADOR EXTRAORDINARY AND 
PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE KINGDOM 
                           OF NORWAY

    Mr. Braithwaite. Chairman Rubio, Ranking Member Menendez, 
and distinguished members of the committee, it is an honor and 
a privilege to appear before you today as the President's 
nominee to be United States Ambassador to the Kingdom of 
Norway. It is almost impossible for me to capture in 5 minutes 
the words to adequately define how I feel, should I be 
confirmed, to be able to once again serve our great nation and 
the people of the United States. I would like to thank 
President Trump and Secretary Tillerson for their confidence, 
their faith and trust in me to serve as our nation's envoy to 
Norway. I can think of few greater honors than to be the 
principal representative of the United States to such an 
important strategic ally.
    I would also like to thank several mentors who have guided 
me directly and indirectly as I have developed in my service to 
our nation: my first commanding officer, Admiral Tom Lynch, 
former Superintendent of the Naval Academy; Ambassador Ryan 
Crocker, who I served under in Islamabad; Ms. Uschi Keszler, 
U.S. Olympian and my life coach who is with me today; and my 
best friend, Mr. David Urban, a West Point graduate and proof 
that the Army and the Navy can get along well.
    Finally and most especially, I would not be here without my 
wife Melissa and our two children, Grace and Harrison, who are 
with me today to support me hopefully once again in service to 
our nation together. I am reminded, as Senator Arlen Specter 
told me so many years ago when I worked for him, that the 
reason we serve is to ensure that our children and our 
children's children inherit the same great country that we 
received from those who went before us. After 31 years in the 
uniform of our nation, I intend, with your approval, sirs, to 
once again do all I can to uphold that sacred responsibility.
    Our relationship with the Kingdom of Norway is truly a 
special one for so many reasons. Built upon a shared commitment 
to the idea that freedom is a sacred privilege that must be 
protected vigilantly, Norway has stood closely by the United 
States in many conflicts since its independence from Sweden in 
1905. Norway was one of the first nations to stand with us in 
Afghanistan following the attacks of September 11th of 2001 
and, as the chairman noted, continues to contribute troops to 
NATO's Resolute Support mission in Afghanistan.
    As a founding NATO ally, Norway is the key guardian of our 
northern flank of this important alliance, standing watch over 
a vast Arctic frontier. Norwegians have demonstrated time and 
again their commitment to ensuring that regional aggressor 
nations do not threaten ours or our allies' interests. As a 
young naval officer during bilateral carrier battle group 
operations in the fjords and later as a senior officer 
operating upon the Baltic Sea in joint fleet exercises, I 
personally witnessed, sir, the Norwegian military's incredibly 
impressive capabilities at sea and ashore. They are, without 
doubt, a highly valued and greatly trusted ally.
    Norway also shares our faith in a strong market-based 
economy. Norwegians have established one of the most secure 
markets in the world, and only earlier this year, their 
national sovereign wealth fund reached an unprecedented 
achievement by surpassing $1 trillion. This stability affords 
them the opportunity to look towards new and innovative 
technologies and other investments seeking partner nations such 
as the United States with which to pursue greater economic 
strength.
    Looking to the future, should you confirm my nomination, I 
would seek to pursue three principal objectives for the United 
States and our partnership with Norway.
    First and foremost, I would seek to reaffirm that our 
commitment to NATO remains as strong as ever. The President and 
Secretary Tillerson, along with Secretary Mattis, have stated 
repeatedly that we stand behind article 5 and fully recognize 
the importance of a strong and adequately funded North Atlantic 
Treaty Organization.
    Secondly, I would seek to strengthen even further our 
investment and trade ties. I would work with U.S. businesses to 
seek opportunities to expand into growing Norwegian markets by 
exploring ways for Norwegian businesses to work in 
collaboration with U.S. companies in markets here and abroad.
    And finally, I would do everything in my power to work 
closely with the Norwegian Government to ensure the safety and 
security of Americans abroad, whether engaged in business, 
academic exchange, research collaboration, or the pleasure of 
just traveling to such a wonderful nation as Norway. All free 
peoples are at risk of terrorist attacks today across the 
globe. So working closely with Norwegian security agencies, I 
would seek to extend an umbrella of safety over our respective 
nations.
    As I close, I am reminded of something my father said to me 
as a young boy. My dad, Private First Class Kenneth J. 
Braithwaite, Sr., was severely wounded, shot in the head in 
France shortly after landing in the very first wave upon the 
beaches of Normandy on June 6th of 1944. He loved our country 
and all it stood for and was the first person, along with my 
mother Sylvia, to instill in me a sense of pride in our nation 
and a sense of duty and service above self. I asked him once 
how he did it, how he exited that landing craft that morning 
with enemy bullets hitting all around him. He said simply, it 
was my duty, son.
    My father, although humble to a fault, was proud to have 
served to ensure our American dream could persevere. He told me 
as a young boy that anything was possible in America if you 
applied yourself and worked to realize your dream. He and my 
mother were very proud when I went off to the U.S. Naval 
Academy, both having never had the opportunity to attend 
college, nor being able to really afford to send me. I cannot 
help but reflect upon my father's life, that his sacrifice and 
duty to our nation is today realized, his son, here before you, 
nominated to be the United States Ambassador to the Kingdom of 
Norway. In America, the home of the free and the land of the 
brave, anything is possible.
    Mr. Chairman and Mr. Ranking Member, I am honored to be 
here and I look forward to your questions.
    [Mr. Braithwaite's prepared statement follows:]


       Prepared Statement of Rear Admiral Kenneth J. Braithwaite

    Chairman Rubio, Ranking Member Menendez and distinguished members 
of the committee, it is an honor and a privilege to appear before you 
today as the President's nominee to be United States Ambassador to the 
Kingdom of Norway. Words cannot adequately define how I feel, should I 
be confirmed, to be able to once again serve our great Nation and the 
People of the United States. I would like to thank President Trump and 
Secretary Tillerson for their confidence, faith and trust in me to 
serve as our Nation's envoy to Norway. I can think of no greater honor 
than to be the principle representative of the United States to such an 
important strategic ally.
    I would also like to thank several mentors who have guided me 
directly and indirectly as I have developed in my service to our 
country; my first commanding officer Admiral Tom Lynch, former 
Superintendent of the Naval Academy; Ambassador Ryan Crocker under whom 
I served in Islamabad; Ms. Uschi Keszler, U.S. Olympian and my life 
coach who is with me today; and my best friend, Mr. David Urban, a West 
Point graduate and proof that the Army and the Navy can get along well. 
Each of these individuals and so many others contributed to my 
development and continue to offer advice and guidance as I prepare with 
your support to serve again.
    Finally and most especially, I wouldn't be here without my wife 
Melissa and our two children, Grace and Harrison, who are with me today 
to support me hopefully once again in service to our nation. I am 
reminded, as Senator Arlen Specter told me so many years ago when I 
worked for him, that the reason we serve is to ensure our children and 
our children's children inherit the same great country that we received 
from those who went before us. After 31 years in the uniform of our 
nation, I intend with your approval to once again do all I can to 
uphold that sacred responsibility.
    Our relationship with the Kingdom of Norway is truly a special one 
for so many reasons. Built upon a shared commitment to the idea that 
freedom is a sacred privilege that must be protected vigilantly, Norway 
has stood closely by the United States in many conflicts since its 
independence in 1905. Norway was one of the first nations to stand with 
us in Afghanistan following the attacks of September 11th, 2001, and 
continues to contribute troops to NATO's Resolute Support Mission 
alongside us today. Nearer to my Navy roots, the Norwegians have 
deployed naval assets to support anti-piracy efforts in Operation Ocean 
Shield off Somalia in alignment with their belief as a maritime nation 
of the importance of open sea-lanes of communication. And today Norway 
is one of our strongest Allies in NATO, fully committed to supporting 
this important strategic alliance in both manpower and materiel.
    As a founding NATO ally, Norway is the key guardian of the Northern 
Flank of this important alliance, standing watch over a vast arctic 
frontier. Norwegians have demonstrated time and again their commitment 
to ensuring that regional aggressor nations do not threaten our or our 
Allies' interests. As a young Naval Officer during bilateral carrier 
battle group operations in the fjords and later as a senior officer 
operating on the Baltic Sea in joint fleet exercises, I personally 
witnessed the Norwegian Military's incredibly impressive offensive and 
defensive capabilities at sea and ashore. They are without a doubt a 
highly valued and greatly trusted ally!
    Norway also shares our faith in a strong market-based economy. 
Norwegians have established one of the most secure markets in the world 
and earlier this year their national sovereign wealth fund reached an 
unprecedented achievement by surpassing one trillion dollars. This 
stability affords them the opportunity to look towards new and 
innovative technologies and other investments, seeking partner nations 
with which to pursue greater economic strength.
    Looking to the future, should you confirm my nomination, I would 
seek to pursue three principal objectives for the United States in our 
partnership with Norway.
    First and foremost, I would seek to reaffirm that our commitment to 
NATO remains as strong as ever. The President and Secretary Tillerson, 
along with Secretary Mattis, have stated repeatedly that we stand 
behind Article 5 and fully recognize the importance of a strong and 
adequately funded North Atlantic Treaty Organization. I would 
personally deliver that message through routine engagement with the 
Norwegian government and public.
    Secondly, I would seek to strengthen even further our investment 
and trade ties. I would work with U.S. businesses to seek opportunities 
to expand into growing Norwegian markets by exploring ways for 
Norwegian businesses to work in collaboration with U.S. companies in 
markets here and abroad. I believe Norway is in an unprecedented period 
in its history of market expansion, and I am confident the United 
States could further assist and benefit from such a relationship.
    Finally, I would do everything in my power to work closely with the 
Norwegian government and its respective security agencies to ensure the 
safety and security of Americans abroad, whether engaged in business, 
academic exchange, research collaboration, or the pleasure of traveling 
to such a wonderful country as Norway. All free peoples are at risk of 
terrorist attacks today across the globe. Therefore, I would work 
diligently to ensure our security agencies are working closely with 
Norwegian security agencies to extend an umbrella of safety over our 
respective nations.
    As I close, I am reminded of something my father said to me as a 
young boy. My dad, Private First Class Kenneth J. Braithwaite, Sr., was 
severely wounded, shot in the head in France shortly after landing in 
the very first wave upon the beaches of Normandy on June 6th 1944. He 
loved our country and all it stood for and was the first person along 
with my mother Sylvia to instill in me a sense of pride in our nation 
and a sense of duty and service above self. I asked him once how he did 
it--how he exited that landing craft that morning with enemy bullets 
hitting all around him. He said simply, ``It was my duty son.'' My 
father, although humble to a fault, was proud to have served to ensure 
our American dream could persevere. He told me as a young boy that 
anything was possible in America if you applied yourself and worked 
hard to realize that dream. He and my mother were very proud when I 
went off to the U.S. Naval Academy, both having never had the 
opportunity to attend college, nor being able to really afford to send 
me. I can't help but reflect upon my father's life, that his sacrifice 
in duty to our nation is today realized, his son, here before you, 
nominated to be the U.S. Ambassador to the Kingdom of Norway. In 
America, the Home of the Free and the Land of the Brave, anything is 
possible.
    Mr. Chairman, Mr. Ranking Member Menendez, and distinguished 
members of the committee, thank you for your time. I would be honored 
to learn from your comments and to answer any questions you may have.


    Senator Rubio. Thank you very much, sir.
    Representative Trujillo?

STATEMENT OF HON. CARLOS TRUJILLO, OF FLORIDA, TO BE PERMANENT 
     REPRESENTATIVE OF THE UNITED STATES OF AMERICA TO THE 
  ORGANIZATION OF AMERICAN STATES, WITH THE RANK OF AMBASSADOR

    Mr. Trujillo. Thank you, Chairman Rubio, Ranking Member 
Menendez, and members of the committee. It is an honor to 
appear before you today as President Trump's nominee to be the 
United States Permanent Representative to the Organization of 
American States. I want to thank the President for his 
confidence in me and the opportunity, with your approval, to 
represent the American people during a critical period in the 
history of the Western Hemisphere.
    Before I begin, I would like to take an opportunity to 
express my gratitude to those who have supported me along the 
way: my wife Carmen, who is present today, along with our four 
children, Carlos, Isabella, Juan Pablo, and Felipe, along with 
my mother and in-laws--my mother, Georgina Fernandez, and in-
laws Consuelo and Hector Mira, who are also present; my father 
Ruben Trujillo, who is watching from home; my step-parents, 
Hector and Jamais; and my grandparents, Manuel and Alba 
Fernandez, and Rubin and Mirtha Trujillo.
    I know today is a remarkable day for my grandparents. They 
arrived in this country exactly 50 years ago from Cuba with 
nothing. This country has been our safe harbor and our greatest 
blessing. For me to stand here before this august body is a 
testament to the American dream and the power of education and 
hard work.
    By way of background, I am currently the Special Advisor at 
the U.S. Mission to the United Nations. That job has uniquely 
prepared me for the challenges that come ahead. In addition, my 
mix of public, private, and professional experience has given 
me a set of skills that I hope to be able to employ on behalf 
of the United States of America and in service to its people.
    I have served as a prosecutor fighting for dignity and 
justice for all.
    I have also served on the board of directors of the fourth 
largest public hospital in the country, the Jackson Memorial 
Public Health Trust. There I learned that people from all over 
the world still strive for a better and higher quality of life.
    I have served as a State legislator elected four terms in 
one of the largest States in the nation. There I served as the 
Chairman of the Florida House of Representatives' 
Appropriations Committee, which oversees an $83 billion budget. 
My experience working in a legislative body and negotiating 
delicate, confidential, and immensely important matters will 
only complement my service to the United States in this 
honorable capacity to which I have been nominated.
    In my private life, I am a graduate of Spring Hill College 
and the Florida State University College of Law. I have built a 
small and successful business. Along with my partners, I 
founded and managed a mid-sized Hispanic-owned law firm with 
more than 50 employees. We have weathered the storms of 
recession and strife, and I have learned much about the 
importance of tact, tenacity, integrity, and perseverance which 
has served me throughout my career in public service.
    If confirmed, it will be an honor for me to advance U.S. 
foreign policy interests throughout the OAS, a noble 
organization that remains the preeminent multilateral forum for 
our region, the Americas.
    OAS and the Inter-American system were created to promote 
democracy and the rule of law in the Americas; to promote and 
protect human rights and fundamental freedoms; to advance the 
security of our citizens; foster economic development and 
prosperity; and to uphold the practices, purposes, and 
principles set forth in the Charter of the Organization of 
American States, the American Declaration on the Rights and 
Duties of Man, and the Inter-American Democratic Charter, in 
accordance with the United States Constitution. These 
instruments embody the shared democratic values that make the 
Americas unique and make our own country great. If confirmed, I 
pledge to do my utmost to ensure that the OAS lives up to its 
legacy as it confronts today's daunting challenges.
    I will also work to make sure American taxpayers are 
getting a fair return for their investment in the OAS by 
working to build a stronger, more efficient, and more effective 
organization. Through tough but good faith negotiations with 
member states, we can achieve a broader, more sustainable 
financial base for the OAS that does not depend so heavily on a 
single country, in keeping with the objectives outlined in the 
Organization of American States Revitalization and Reform Act 
of 2013.
    If confirmed, I look forward to leading the U.S. mission to 
the OAS in advancing the above-mentioned goals. I believe that 
my past experiences have prepared me, if confirmed by the 
Senate, to serve more effectively as the United States 
Permanent Representative to the Organization of American 
States. I am cognizant of the difficulties that have 
historically and currently face the region. If confirmed, I 
promise to work closely with you, with the executive branch, 
and all those concerned in advancing the goals of the American 
people.
    Chairman, Ranking Member, and members of the committee, it 
is an honor to appear before you today, and I look forward to 
your comments, humbly ask for your support, and look forward to 
answering your questions. Thank you.
    [Mr. Trujillo's prepared statement follows:]


                 Prepared Statement of Carlos Trujillo

    Chairman Rubio, Ranking Member Menendez, and members of the 
committee, it is an honor to appear before you today as President 
Trump's nominee to be the United States Permanent Representative to the 
Organization of American States. I want to thank the President for his 
confidence in me and for the opportunity--with your approval--to 
represent the American people during a critical period in the history 
of the Western Hemisphere.
    Before I begin, I would also like to take an opportunity to express 
my gratitude to those who have supported me along the way: my wife 
Carmen and our four children; Carlos, Isabella, Juan Pablo and Felipe, 
who are with me here today. My family watching at home, my parents 
Georgina and Ruben, my step-parents Hector and Jamais, and grandparents 
Manuel and Alba Fernandez, and Ruben and Mirtha Trujillo.
    I know that today is a remarkable day for my grandparents who came 
to the United States of America with nothing. This country has been our 
safe harbor and our greatest blessing. For me to stand before this 
august body is a testament to the American dream and the power of 
education and hard work.By way of background, I am currently the 
Special Advisor at the U.S. Mission to the United Nations. That job has 
uniquely prepared me for the challenges that come ahead.
    In addition, my mix of public, and private, professional 
experiences has given me a set of skills I hope to be able to employ on 
behalf of the United States of America and in service to its people.
    I have served as a prosecutor--fighting for dignity and justice for 
all. I have also served on the Board of Directors of the largest public 
hospital in the country, the Jackson Memorial Public Health Trust. 
There, I learned that people from all over the world will strive for a 
better and higher quality of life.
    I have served as a State Legislator, elected to four terms, in one 
of the largest states in the nation. There, I served as Chairman of the 
Florida House of Representatives' Appropriations Committee, which 
oversees an $83 billion budget. My experience working in a legislative 
body and negotiating delicate, confidential, and immensely important 
matters will only complement my service to the United States in this 
honorable capacity to which I have been nominated.
    In my private life, I am a graduate of Spring Hill College, and the 
Florida State University College of Law. I have built a small and 
successful business. Along with my partners, I founded and manage a 
mid-sized Hispanic-owned law firm, with more than 50 employees. We have 
weathered the storm of recession and strife, and I have learned much 
about the importance of tact, tenacity, integrity and perseverance 
which has served me throughout my career in public service.
    If confirmed, it will be an honor for me to advance U.S. foreign 
policy interests through the OAS, a noble organization that remains the 
preeminent multilateral forum for our region, the Americas.
    The OAS and the Inter-American system were created to promote 
democracy and the rule of law in the Americas; to promote and protect 
human rights and fundamental freedoms; to advance the security of our 
citizens; foster economic development and prosperity; and to uphold the 
practices, purposes, and principles set forth in the Charter of the 
Organization of American States, the American Declaration on the Rights 
and Duties of Man, and the Inter-American Democratic Charter, in 
accordance with the U.S. Constitution. These instruments embody the 
shared democratic values that make the Americas unique, and make our 
own country great. If confirmed, I pledge to do my utmost to ensure 
that the OAS lives up to this legacy as it confronts today's daunting 
challenges.
    I will also work to make sure American tax payers are getting a 
fair return for their investment in the OAS by working to build a 
stronger, more efficient and more effective organization. Through tough 
but good-faith negotiations with other member states, we can achieve a 
broader, more sustainable financial base for the OAS that does not 
depend so heavily on a single country, in keeping with the objectives 
outlined in the Organization of American States Revitalization and 
Reform Act of 2013.
    If confirmed, I look forward to leading the U.S. mission to the OAS 
in advancing the above- mentioned goals. I believe that my past 
experiences have prepared me, if confirmed by the Senate, to serve 
effectively as the U.S. Permanent Representative to the Organization of 
American States. I am cognizant of the difficulties that have 
historically, and currently, face the region. If confirmed, I promise 
to work closely with you, others in the Executive Branch and all those 
concerned with advancing the goals of the American people.
    Mr. Chairman, Ranking Member Menendez, and members of the 
committee, it is an honor to appear before you today. I welcome your 
comments, humbly ask for your support, and look forward to answering 
your questions.


    Senator Rubio. We were just commenting. You were a whole 
minute under on your statement. Very good.
    Mr. Trujillo. Thank you.
    Senator Rubio. Just a joke.
    Mr. McClenny?

STATEMENT OF M. LEE McCLENNY, OF WASHINGTON, A CAREER MEMBER OF 
THE SENIOR FOREIGN SERVICE, CLASS OF MINISTER-COUNSELOR, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
         STATES OF AMERICA TO THE REPUBLIC OF PARAGUAY

    Mr. McClenny. Good morning, Chairman Rubio, Ranking Member 
Menendez.
    It is an honor for me to be selected by Secretary Tillerson 
and nominated by President Trump to be the next Ambassador to 
the Republic of Paraguay. I am deeply pleased to enjoy the 
invaluable support of my family and friends and colleagues, 
some present here today, and most especially the support of my 
wife Katherine who is following today's proceedings from our 
posting in Caracas, Venezuela.
    Mr. Chairman, I have been privileged to serve our nation 
for some 30 years as a career Foreign Service officer, working 
to achieve our foreign policy goals and national security 
objectives. My nine overseas postings have been predominantly 
in the western hemisphere.
    Paraguay today is one of our most like-minded partners in 
this hemisphere. It is clear that the Paraguayan people take 
the view, as we do ourselves, that sustained prosperity and 
long-term stability and security are inextricably linked to 
democratic governance and transparent and efficient 
institutions. If confirmed for this position, I pledge to 
continue our ongoing efforts to strengthen our mutually 
advantageous ties with Paraguay, to continue to assist Paraguay 
with its efforts to build durable and independent institutions, 
to grow a strong and resilient economy, improve government 
transparency, and weed out corruption. These elements will 
strengthen Paraguay as a bilateral and regional partner and 
build support for critical U.S. priorities in this region, 
including fighting money laundering and financial crime, 
strengthening intellectual property rights protections. If 
confirmed, I pledge to continue to support Paraguay's pursuit 
of transnational criminal organizations that abuse that 
nation's territory to commit a range of crimes, including 
contributing to the financing of known terrorist groups and 
trafficking in narcotics, weapons, counterfeit goods, and 
people.
    Paraguay has a steadily expanding open-market economy and 
progressive trade policies that make it increasingly attractive 
to the U.S. and to other international firms. Paraguay actively 
seeks involvement from U.S. companies in the country's growing 
role as a manufacturing and logistics hub for the much larger 
economies of Argentina and Brazil. We export some $2 billion 
worth of goods to Paraguay each year, and we enjoy a strongly 
positive bilateral trade balance. Paraguay's agricultural 
sector produces many of the same products as the United States, 
notably soy and beef cattle, but this creates opportunities for 
the export of advanced U.S. technology, agricultural services, 
and other synergistic trade relationships. Paraguayans admire 
the high quality of U.S. products, and a sustainably growing 
and inclusive Paraguayan economy will continue to increase 
demand for U.S. goods and services. If confirmed, I will work 
to expand our trade for the benefit of both nations. Paraguay's 
economic success advances U.S. economic success.
    Our two nations have a long history of strong people-to-
people ties, especially through the more than 5,000 Peace Corps 
volunteers who have served there since the program began in 
1966. If confirmed, I will also support the Peace Corps program 
in Paraguay, as well as our embassy's flourishing programs to 
support English language teaching and learning, science 
education, and higher educational exchanges. These programs are 
especially valuable to reach the 44 percent of Paraguay's 
population that is younger than 25 years of age. They will also 
help strengthen people-to-people ties, foster mutual 
understanding, and encourage greater engagement between our two 
nations.
    I look forward to, if confirmed for this position, to 
working closely with Congress to advance our national interests 
by further strengthening our positive relationship with the 
Republic of Paraguay as that nation builds its economy, 
strengthens its democratic institutions, confronts 
international criminal and terrorist actors, and plays an ever 
larger role on the international stage, including especially 
leading in regional and international efforts to defend human 
rights and democracy in Venezuela.
    I would be delighted to respond to any questions you may 
have. Thank you very much.
    [Mr. McClenny's prepared statement follows:]


                   Prepared Statement of Lee McClenny

    Chairman Rubio, Ranking Member Menendez, it is an honor to be 
selected by Secretary Tillerson and nominated by President Trump to be 
Ambassador to the Republic of Paraguay. I am deeply pleased to enjoy 
the invaluable support of my wife, Katherine, as well as that of my 
family, friends, and colleagues. Many of them expressed a desire to be 
present to witness this important Constitutional process, but the 
pressures of time, distance and commitments to work mean only a few 
have been able to be present today.
    Mr. Chairman, I have been privileged to serve our nation for some 
30 years as a career Foreign Service Officer, working to achieve our 
foreign policy goals and national security objectives. My nine overseas 
postings have been predominantly in the Western Hemisphere, including 
my current assignment leading the staff of our embassy in Caracas, 
Venezuela.
    Paraguay is one of our most like-minded partners in the hemisphere. 
It is clear that the Paraguayan people take the view, as we do 
ourselves, that sustained prosperity and long-term stability and 
security are inextricably linked to democratic governance and 
transparent and efficient institutions. If confirmed for this position, 
Mr. Chairman, I pledge to continue our ongoing efforts to strengthen 
our mutually advantageous ties with Paraguay. We will continue to 
assist Paraguay with its efforts to build durable and independent 
institutions, grow a strong and resilient economy, improve government 
transparency, and weed out corruption.
    These elements will strengthen Paraguay as a partner and build 
support for critical U.S. priorities. These include fighting money 
laundering and financial crime while strengthening intellectual 
property rights protections. We will support Paraguay's pursuit of 
transnational criminal organizations that abuse Paraguay's territory to 
commit a range of crimes, including contributing to the financing of 
known terrorist groups and trafficking in narcotics, weapons, 
counterfeit goods, and people.
    Paraguay has a steadily expanding open-market economy and 
progressive trade policies that make it increasingly attractive to U.S. 
and other international firms. Paraguay actively seeks involvement from 
U.S. companies in the country's growing role as a manufacturing and 
logistics hub for the much larger economies of Argentina and Brazil. We 
export $2 billion worth of goods to Paraguay each year, and enjoy a 
strongly positive bilateral trade balance. Paraguay's agricultural 
sector produces many of the same products as the United States, notably 
soy and beef cattle, creating opportunities for the export of advanced 
U.S. technology, agricultural services, and other synergistic trade 
relationships. Paraguayans admire the high quality of U.S. products, 
and a sustainably growing and inclusive Paraguayan economy will 
continue to increase demand for U.S. goods and services. If confirmed, 
I will work to expand our trade for the benefit of both nations. 
Paraguay's economic success advances U.S. economic success.
    Paraguay and the United States have a long history of strong 
people-to-people ties, especially through the more than 5,000 Peace 
Corps Volunteers who have served there since the program began in 1966. 
If confirmed, I will also support the Peace Corps program in Paraguay, 
as well as the embassy's flourishing programs to support English 
language teaching and learning, science education, and higher education 
exchanges. These programs are especially valuable to reach the 44 
percent of the Paraguayan population that is younger than 25 years of 
age. They help strengthen people-to-people ties, foster mutual 
understanding, and encourage greater engagement between our two 
nations.
    I look forward, if confirmed for this position, to working closely 
with Congress to advance our national interests by further 
strengthening our positive relationship with the Republic of Paraguay 
as that nation builds its economy, strengthens its democratic 
institutions, confronts international criminal and terrorist actors, 
and plays an ever larger role on the international stage.
    I would be delighted to respond to any questions you may have.


    Senator Rubio. Thank you.
    I am going to defer my opening questions to the ranking 
member, Senator Menendez.
    Senator Menendez. Well, thank you, Mr. Chairman.
    Thank you all for your statements.
    Let me ask all of our nominees this question. A simple yes 
or no would suffice. It is a question that I have asked of 
every nominee that has been before us. And without commenting 
on the potential impact, do you believe that Russia interfered 
in the 2016 presidential elections?
    And I ask because in our own hemisphere, as Mr. Trujillo in 
a visit with me yesterday noted, there are going to be at least 
six countries that are going to be holding elections in the 
hemisphere. We know that Russia has ramped up various 
activities there. Obviously, for your portfolios, Rear Admiral 
Braithwaite and Mr. Bierman, this is quite salient. So I am not 
asking whether or not they actually created an impact. I am 
asking whether or not you believe that they actually sought to 
interfere. So a yes or no would suffice.
    Mr. Bierman. Yes.
    Mr. Braithwaite. Yes, sir. As you know, the Norwegians 
moved to a paper ballot in September because of that concern. 
Thank you for the question.
    Mr. Trujillo. Yes, Senator.
    Mr. McClenny. Yes, Senator. I also see their involvement 
and influence in Venezuela where I serve currently.
    Senator Menendez. Thank you. I appreciate that because if 
we understand that they are a challenge, then we have to think 
about how we deal with that challenge.
    Now, Mr. Trujillo, I want to thank you for stopping by 
yesterday. I appreciate our conversation. And let me pick up on 
some of the OAS institutional questions that I have.
    You noted to me yesterday that one of your priorities was 
restoring credibility to the OAS, specifically noting that some 
Caribbean countries who have failed to condemn the current 
human rights and humanitarian crisis in Venezuela, for example, 
is an issue.
    So tell me and the committee how do you plan to engage with 
these countries. What specific tools in our diplomatic arsenal 
do you believe will be most effective at motivating other 
countries to stand up for the Inter-American Democratic 
Charter?
    Mr. Trujillo. Thank you, Senator, for the question.
    You know, I think it is extremely important for these 
countries to realize the importance of the humanitarian side of 
what is happening in Venezuela.
    I also think it is very important for the congressional 
support. I have reviewed the Humanitarian and Defense of 
Democracy Act in Venezuela that was sponsored by Senator Rubio 
and Senator Cardin. I think the energy independence for the 
Caribbean countries will ultimately help us accomplish that 
goal. But ultimately, I think it is very important for them to 
understand the importance of the humanitarian side, the 
importance of democracy and how important that is to the United 
States and to the region.
    Senator Menendez. I hope you will look at other tools of 
diplomacy that we have in our universe. Although you are not 
going to be a bilateral representative to any of these 
countries, obviously, in a multilateral institution, there are 
still opportunities, working with your colleagues throughout 
the hemisphere, to think about the other elements of American 
diplomacy, the use of aid, trade, international opinion, and 
sometimes, when it is appropriate, the denial of that aid or 
trade at the end of the day. So I would like you to think about 
some of those.
    I want to ask you do you believe that high level 
representation of the United States in international 
organizations is important.
    Mr. Trujillo. Yes, I do, Senator.
    Senator Menendez. And I appreciate that answer because 
Secretary Tillerson has yet to attend a ministerial level 
meeting of the OAS, and that sends a hemispheric impression.
    Now, I know that when we spoke yesterday, I asked you 
whether you had met with the Secretary, and that is not the 
case.
    By the way, have any of you met with the Secretary as it 
relates to the nominations that you have received?
    Mr. Braithwaite. No, sir.
    Mr. McClenny. No, sir.
    Senator Menendez. Mr. Bierman?
    Mr. Bierman. No, I have not.
    Senator Menendez. So I hope that if you are confirmed, will 
you recommend to the Secretary that at some point he personally 
participate in critical OAS meetings?
    Mr. Trujillo. I will, Senator.
    Senator Menendez. Let me ask you about the reform bill that 
we passed in 2013, which I referenced in my opening comments. I 
authored and passed that legislation into law, which urges 
management reforms of the OAS. And as I said, their 2014 
strategic vision aligns with parts of that law, but I think we 
can do more.
    Do you think the State Department has developed a 
successful strategy as it relates to pursuing OAS reform? How 
would you evaluate the State Department's implementation of the 
law, and what components--I do not know if you are familiar 
with the law. I know I mentioned it to you yesterday--of reform 
would you specifically focus on beyond obviously pursuing a 
more vigorous response of countries of the Democratic Charter?
    Mr. Trujillo. Well, I think, Senator, what is really 
important is just the governance of the institution from a 
managerial perspective. The United States contribution should 
not exceed 50 percent as far as the U.S. mission to the OAS. 
Their response in Cancun--they were very successful in 
achieving that. It is a 5-year glide path. We are hopeful to 
reaching it. If I am confirmed, I will definitely towards being 
successful in accomplishing those goals. But the financial 
integrity, aside from the charter, but the financial and the 
governance of the institution is of foremost importance.
    Senator Menendez. Mr. Chairman, my time has expired, but if 
there is no one else, I do have one other question for you, and 
then I would like to turn to one of our other nominees.
    Now, I have spent the better part of a quarter of a century 
in Congress trying to improve our immigration laws and the 
lives of immigrants in their communities. And unfortunately, in 
the past few years, we have seen a surge of Central American 
migrants fleeing violence, oppression, and poverty. And when I 
engage with ambassadors from Central American countries, their 
primary focus is protecting their citizens, not only from the 
challenges they have at home, but from immigration orders that 
tear families apart and potentially incur other devastating 
consequences.
    In 2015, you authored what I would consider a draconian 
bill in the Florida legislature that would have made not 
complying with the deportation order a felony, punishable up to 
30 years in prison. So I want to give you a chance on the 
record because I know this is going to be pursued by others, 
and so I figured in fairness to you, I want to give you a 
chance on the record to give me a sense of what you meant by 
that bill because when you deal with the ambassadors of these 
countries, they are going to know this and they are going to 
say to themselves, you know, you want me to vote in a certain 
way. Some of these countries, Mexico, Guatemala, and others in 
Central America, are good partners with us at the OAS. So this 
is going to be a bit of a challenge, and I want to hear what 
your intent was and how you are going to deal with that.
    Mr. Trujillo. Thank you for the question, Senator.
    I would not have supported that bill in the form it was 
drafted. It was poorly drafted and it never captured my 
original intent. My original intent for that bill was to codify 
the federal statute of illegal reentry post deportation, post 
all of due process being exhausted.
    As far as dealing with other ambassadors at the OAS, if I 
am confirmed, I think I would discuss my body of work in the 
State legislature. I supported KidCare. I supported a permanent 
resident of the United States being able to practice law in the 
State of Florida. I supported in-State tuition. So overall the 
comprehensive work that I did towards immigration reform, given 
the confines of being a member of the State legislature, I 
would definitely discuss that with them.
    Senator Menendez. Well, it speaks volumes about the need to 
make sure, which I know we agonize here with what we introduce 
being what our intent was. And so if you are to be confirmed as 
the Ambassador to the OAS, what resolutions we pursue and how 
they are drafted are going to be incredibly important. So I 
hope that that is an experiential factor that you will take 
with you to the institution.
    Mr. Bierman, I appreciate your past service.
    According to USAID and the E&E Bureau, it seeks to promote 
resilient and democratic societies, strengthen economic growth 
and energy security, support European-Atlantic integration to 
realize a region that is whole, free, and at peace.
    Now, I would argue, in the face of ongoing Russian military 
aggression and disinformation campaigns aimed at eroding 
democratic institutions and western alliances, this mission has 
never been more important.
    Now, the question I would like to get a sense from you, do 
you feel that you are going to have the resources necessary to 
carry out your mandated duties? The request for fiscal year 
2018 of the budget would eliminate--eliminate--not reduce--
eliminate assistance for Eastern Europe and Central Asia. I do 
not know how those proposed cuts serve the national interest of 
the United States. And I know you are not there to have been an 
advocate of what the budget is. But, if confirmed, that 
statement that I read about a core mission is going to be very 
difficult to pursue without the resources, for example, Ukraine 
that is suffering under direct military occupation by Russia. 
So give me a sense of how you are going to meet that challenge.
    Mr. Bierman. Well, thank you very much, Senator, for that 
question. And thank you to the entire committee for their work 
on this specific issue. I think Senator Cardin's work 
specifically in addressing the increasing resources in our 
region has been critical in our efforts over the last 2 years. 
As you can see, we have had a significant increase since 2015.
    Senator Menendez. You had an increase but the budget calls 
for an elimination.
    Mr. Bierman. Well, I have not had a chance to actually work 
on those specific details, but I do look forward to working, if 
I am confirmed, specifically within the administration and 
being an advocate for foreign assistance and its value and then 
working again with your committee to try to address those 
specific issues.
    I also would very quickly just like to thank you for your 
question earlier about Russian influence in elections because 
it is having an impact in every country, not just covertly but 
openly. I was in Moldova in 2014, and I saw open campaigning of 
President Putin with at least one specific political party. So 
it is an open campaign, as well as a covert campaign.
    And I also want to thank you for your question regarding 
working with our partners. I think it is very important. I am 
looking forward to working with my European partners in the EU 
specifically on resources and how we can work together to have 
a larger impact on our role.
    But I do think that, if confirmed, I am looking forward to 
working with you and the committee specifically on how to 
address the resource issue in our area.
    Senator Menendez. Well, I appreciate that answer. And I 
will close on this, Mr. Chairman. The rest of my questions I 
will submit for the record.
    Earlier this month, a ``Washington Post'' article opened 
with a disheartening headline. And I appreciate the chairman 
who has been supportive of some of my efforts when we were 
marking up here on USAID. This is the headline: The Developing 
World Will Have Fewer American Engineers, Economists, Teachers, 
and Health Workers to Help Prepare for the Future,'' referring 
to the abrupt cancellation notices to 178 people previously 
accepted into Foreign Service positions.
    So one of the questions I was going to ask you, but you 
preempted it, is if you are confirmed, hopefully you will be an 
advocate internally for--and I supported Ambassador Green to be 
the Administrator. I want to see every dollar used used wisely. 
I want to see every dollar used used effectively. But if we do 
not believe as we work to that goal of never needing foreign 
assistance again--but we are not there by any stretch of the 
imagination. If we do not believe that this is a critical 
element of U.S. foreign policy, then we are incredibly short-
sighted.
    So I hope that you will use your experience to explain how 
this is actually a force multiplier and an opportunity.
    Mr. Bierman. If I might, I would like to say that the 
Europe & Eurasia Bureau specifically has been a model for 
success. 11 of our countries are now members of the EU, 
countries that we had missions in.
    As you probably heard through my statement, I am an 
historian by nature, and in the same book that David McCullough 
wrote, he mentioned that in order to chart a path forward, we 
have to have an understanding of the past. And in many ways 
sometimes I think it is like planting cut flowers. If there is 
no root, there is no foundation, there is no understanding of 
the past, then it is not going to last. So I think it is 
important that we have a strong foundation in Europe & Eurasia, 
and I am looking forward to working with you and the committee 
on that.
    Senator Menendez. Thank you.
    And, Mr. Trujillo, your sons have made me feel very at home 
because they are doing what my kids used to do when I used to 
talk. [Laughter.]
    Senator Menendez. They are lovely.
    All right. Thank you, Mr. Chairman.
    Senator Rubio. We will see now if they wake up when I talk. 
[Laughter.]
    Senator Rubio. I want to follow up on a question that the 
ranking member asked. Who is the highest ranking State 
Department official that any of you have met with in 
preparation for and anticipation of your nomination with regard 
to this posting?
    Mr. Bierman. I have met with Administrator Green, and we 
have had several discussions specifically, by the way, I will 
say on working with our European partners. So it actually 
addresses the ranking member's question earlier, but I have met 
with Ambassador Green and had substantive comments with him.
    Senator Rubio. Admiral?
    Mr. Braithwaite. Deputy Secretary Sullivan, sir.
    Mr. Trujillo. Kevin Sullivan over at the OAS.
    Mr. McClenny. Officials within the Bureau of Western 
Hemisphere Affairs, and I will be meeting with Under Secretary 
Shannon later today.
    Senator Rubio. This question is kind of more open-ended. I 
will give you an opportunity to expand on your opening comments 
for each of you, and in fairness, since you have gone last 
every time, Mr. McClenny, we will start with you. Plus you have 
a pretty tough post right now, so I think you deserve a little 
benefit here given your current challenges that you face in a 
very difficult posting.
    What is the greatest central challenge, if confirmed, in 
your new assignment, in your new post?
    Mr. McClenny. Thank you for the question, Senator.
    I think the greatest challenge will be continuing the 
policy of engagement that we have manifested, that we have 
executed over the recent years to carry Paraguay's own efforts 
forward on the areas of judicial transparency, fighting 
corruption, fighting transnational criminal organizations, as 
well as terrorist financing.
    I think in your remarks, sir, you made reference to 
something that has been a constant and returning, recurring 
issue of concern in the western hemisphere, and that is 
activities of an illegal and terrorist nature taking place or 
emanating from the tri-border region. I agree completely with 
the comments you made that this is a problem that has been--it 
is a problem that we have been observing closely and we have 
been working against for a number of years. There is a lot of 
smoke. It continues to be a source of a great deal of concern 
for all of us. It will require work, if confirmed, on the part 
of myself and the staff in the embassy in Asuncion but also for 
the my colleagues across the border in Argentina and in Brazil. 
I pledge to pay very close attention to what is going on in the 
tri-border region because it is an area of great concern and it 
has been for many years.
    Senator Rubio. And just to expound on that for a second--
and I apologize to the other nominees. We will get to you in a 
moment on the same question.
    When you talk about the tri-border region, for those who 
may not be familiar with what exactly--you were actually 
referring to Hezbollah. A lot of people think about Hezbollah 
as a threat in the Middle East, and to the extent that their 
engagement in the western hemisphere exists, it has largely 
been viewed as a fundraising mechanism, a place where they 
conduct illicit activities to raise money and send back.
    But just today there was an open source report in one of 
the press outlets about an increasing concern about Hezbollah 
scouting and surveiling and preparing contingency plans for 
activities against the United States and its interests in the 
western hemisphere and potentially having carried out those in 
the past in the western hemisphere.
    In the case of a conflict either with Hezbollah and/or 
Iran, they would serve as a proxy, in essence. If the U.S. 
entered into some sort of conflict, the Iranians could order 
Hezbollah to conduct asymmetrical attacks both against the 
homeland and in the western hemisphere against U.S. interests 
in a way that gives them a level of deniability publicly, but 
we would know. And it would be a price that they would want us 
to know that we would have to pay.
    So particularly with the threat of Hezbollah, it is your 
view that Hezbollah poses both--that they pose both, obviously, 
a financial threat but also a potential operational threat?
    Mr. McClenny. It is my view, based on the information that 
I have seen, sir, that there is an actual financial fundraising 
threat that is ongoing, current, and requires attention, and 
that there is a potential for an operational threat in the 
future. I have not seen any information to indicate that 
Hezbollah is operationally active in the tri-border region at 
this point in time, but completely agree with your view that 
this is something that must be watched very closely.
    Senator Rubio. Representative Trujillo, the same question 
on the broader challenge.
    Mr. Trujillo. Thank you, Senator.
    I think the broader challenge is the backward slides in 
democracy. If you look at the situation in Venezuela where they 
have gone over the last 15 years and how that has spilled out 
over the region, it is something that will continue to affect 
the region for years to come, the humanitarian issues, the lack 
of democracy, the lack of elections, corruption. I think when 
you look at the Panama Papers and Odebrecht and how that 
corruption starts really challenging people's trust in a 
democratic system, I think that is definitely a challenge 
facing the region. And going forward is the elections, as 
Senator Menendez mentioned, over the next year, the six, maybe 
seven elections that will take place, the outcomes of those 
elections and making sure that not only are they democratic in 
nature and fair and transparent but also those leaders govern 
democratically once they are elected.
    Senator Rubio. Admiral?
    Mr. Braithwaite. Thank you, Mr. Chairman.
    I would have to say the Arctic, sir. And specifically, the 
Arctic is a top strategic foreign policy priority for the 
Norwegians and the United States in our partnership with them, 
but specifically the remilitarization of the region by the 
Russians. As you know, sir, the Russians have reinstituted 
strategic bomber flights along the Norwegian coast. They have 
reestablished both land and closer to my roots, naval forces on 
the Kola Peninsula, including their brand new Borei class 
ballistic missile submarine.
    So I think that our challenges are going to be to assure 
the Norwegians that we are there. We have created a number of 
interoperability opportunities with us with the Joint Strike 
Fighter and the P-8 Poseidon aircraft. With my roots as a 
former antisubmarine warfare pilot who spent a lot of time 
hunting then Soviet submarines, I think that is going to be at 
the forefront, if I were confirmed, during my time in Oslo 
working very closely with the Norwegian Government and keeping 
eyes on our friends in Russia.
    Senator Rubio. Thank you, sir.
    Mr. Bierman?
    Mr. Bierman. As I mentioned earlier, Russian malign 
influence is going to be a top priority along with fighting 
violent extremism.
    But on a micro level, I think youth unemployment is of 
great concern specifically in the Balkans. Some of our 
countries are seeing a better than 50 percent unemployment rate 
between the ages of 18 and 25, and I think that that is a 
serious issue and it raises issues beyond unemployment.
    I also think that open media and a free media is something 
of great concern and a top priority.
    And lastly, I think decentralization is very important as 
we work with local communities to try to involve the local 
communities in governance and open and fair elections.
    Senator Rubio. Thank you.
    Senator Kaine. By the way, to Mr. Trujillo and McClenny, he 
speaks Spanish very well. He is very tricky about that, but he 
does speaks very well. But we are going to do this in English 
today.
    Senator Kaine. He is overstating mi abilidad.
    But thank you all and congratulations on your nominations 
for these important positions. Let me just ask each of you a 
couple of questions.
    Mr. Trujillo, first to you. The Inter-American Commission 
on Human Rights. It has long been considered one of the crown 
jewels of the OAS and it has been a critical forum to focus on 
human rights issues, and it often is a target because of that 
focus and it is a target from folks on both the left and the 
right.
    What is your assessment of the commission at this point, 
and what steps will you take to make sure that it is defended 
and appropriately funded, especially at a time when the 
administration is proposing some pretty significant budget cuts 
and being seen by objective observers as deemphasizing human 
rights issues as part of the portfolio of the administration?
    Mr. Trujillo. Thank you, Senator, for the question.
    I think the Human Rights Commission is extremely important. 
The most important thing is that it is autonomous. It cannot be 
controlled by a member state. It cannot be controlled by the 
organization. It really has to be an organization that stands 
for justice and stands for human rights.
    My goal and my commitment is making sure that they have the 
adequate funding to carry out their mission. Obviously, 
Venezuela and other members in the OAS are trying to undermine 
their objectives. My goal, if I am confirmed, is to advocate 
making sure that they are properly funded, they are autonomous, 
and they are able to carry out their mission.
    Senator Kaine. Can you talk a little bit, using Venezuela 
as an example, what more might the OAS be able to do? What 
could you do? What could the United States do to help them be 
more vigorous in trying to promote human rights and more 
peaceful resolution of challenges within Venezuela?
    Mr. Trujillo. Thank you for the question, Senator.
    I think one thing that they have done--Secretary Almagro, 
having the hearings over the last 3 months and analyzing 
violations of human rights and having those forums in which 
dissidents could come and express their concerns and ultimately 
trying to build a case in which those people are referred to 
The Hague Commission for prosecution--I think it is an 
exceptional step forward from the OAS and their prerogative.
    As I mentioned earlier to Senator Menendez, I think the 
ability of the OAS to really stand by their charter, if they 
really believe in the Inter-American Democratic Charter, and 
hold Venezuela accountable, making sure that they are held 
accountable for violating the charter. And I think as the 
United States, I think the sanctions are very effective, the 
sanctions that we have passed against high level officials. I 
think it is very important for us to try to deliver 
humanitarian aid. Obviously, it is being blocked by the 
Venezuelans, but I think it is of foremost importance for 
people to have access to water and food and medicine. They are 
human rights that should always be upheld.
    Senator Kaine. I understand that Senator Menendez has 
already asked about this, but I am concerned about it as well. 
As a member of the Florida State legislature, you had 
legislation that would have charged undocumented immigrants 
with felony penalties under State law if they reentered the 
United States after deportation. And I am wondering about that. 
There are penalties for reentering under immigration law. What 
was your thinking about trying to, in addition, make that a 
State felony?
    Mr. Trujillo. Thank you for the question, Senator.
    The way it was originally drafted was never my intention. 
My intention was to capture the illegal reentry and codify the 
federal statute. I was a prosecutor for 4 years in Miami, and 
one thing that was always a bit concerning were individuals 
with final ICE deportation holds being released. So they were 
people who were afforded due process, were released from either 
county jail or from State prison, transported back to our local 
facilities, a 48-hour ICE hold, and ultimately they were 
released back into the residence.
    Senator Kaine. And they would be released because ICE would 
determine--they would be notified, but they would determine 
that there was no need to deport the individuals?
    Mr. Trujillo. They were released--sometimes there were 
issues with communications between ICE and the county jails or 
the Department of Corrections. There were multiple issues with 
the communications between the interagencies.
    Senator Kaine. I am just curious. When I was Governor, we 
had a very standard practice. If somebody was in a jail or 
prison who was there and was undocumented, we would let ICE 
know before release. And we would let ICE make the decision 
about whether somebody needed to be deported or whether there 
was some other sort of process that needed to be engaged 
against them. And that was something we did as a matter of 
course. ICE usually, after checking someone's record, decided 
not to do anything, and somebody would be released.
    But I am just curious. What exactly was your intention then 
in making that a separate State-level felony if ICE had 
determined that the individual posed no safety threat?
    Mr. Trujillo. My intention was that if the person was 
forcibly removed from the United States, not a person who 
voluntarily leaves and returns, a person who is forcibly 
removed, has exhausted all due process, has a final deportation 
order and is removed, if they reenter and commit a new offense, 
they will be held for the additional crime of illegal reentry 
as to the State statute. As far as the ICE issue in Florida, 
there was some disconnect based on communication in which 
individuals could only be held under State law for 48 hours. 
After 48 hours, they have to be released. If not, their 
attorneys could file a writ of habeas corpus and have them 
released. So that was the issue I was trying to address.
    Senator Kaine. Mr. McClenny, let me ask you a question 
about Paraguay. It is a significant transshipment point for 
cocaine and all the attendant challenges, corruption, limited 
government resources, affect on the public safety system.
    I notice in budget submissions--well, first let me ask you 
this. What is your assessment of the steps that the Government 
of Paraguay is taking to increase the capacity to interdict 
illicit drugs?
    Mr. McClenny. Thank you for the question, Senator Kaine.
    The Paraguayan Government is a strong partner and a good 
partner in the efforts regionally and bilaterally to interdict 
drug traffic shipments, as well as to interdict movements of 
money that are associated with drug trafficking. There are 
clear shortcomings in ability and technology and equipment and 
supplies and a variety of other things. Interagency and embassy 
programs are working to address those shortcomings. They have 
been over a number of years, and we will continue to do those. 
If confirmed, I pledge that we will continue to work hard on 
these important issues.
    Paraguay is a transshipment country for cocaine but it is 
also a source country for marijuana that circulates largely in 
South America. That is another subject of focus for them and 
something that is a lower priority for the United States but 
still an important counternarcotics priority.
    Senator Kaine. Mr. Chair, I have one more question, if I 
could continue before maybe going to Senator Murphy, on 
Paraguay.
    I notice that Trump administration has proposed eliminating 
USAID development assistance to Paraguay. I have not visited 
Paraguay, but what I know about the country would suggest that 
there are still some very significant development needs where 
USAID could be helpful. And over the years, USAID I think has 
played a pretty important role working in tandem with the U.S. 
embassy and other American officials in Paraguay.
    How would the elimination of USAID development assistance 
affect the relationship?
    Mr. McClenny. Again, thank you for the question.
    USAID has a long and proud history of work in Paraguay and 
a significant record of achievements working with Paraguayan 
counterparts to advance our interests and goals in a variety of 
development ways.
    You are correct that the current budget request for 
development assistance funds is zero for next year and zero for 
the year after that. This will have an impact on the programs 
that we are able to do on the ground. There is money, however, 
in the pipeline. We will continue to use those funds. We will 
use the resources that are provided to us the very best we can 
to achieve the goals that we can in the country.
    In general terms with regard to the bilateral relationship, 
we have a strong relationship with Paraguay, and I do not think 
the zeroing out over time of these funds will fundamentally 
affect that relationship.
    Senator Kaine. You have had a long career in the State 
Department and served in many positions, others in Latin 
America as well. But as a general matter, the USAID portfolio 
in these countries is an important and productive part of the 
American relationship with the countries. Would you not agree?
    Mr. McClenny. I absolutely would agree, sir. Currently 
where I serve in Venezuela, it is an important aspect. It is an 
important arrow in our quiver. It is an important tool in our 
toolbox. It has been in all of the Latin American countries 
where I have served.
    Senator Kaine. Thank you, Mr. Chair.
    Senator Rubio. Senator Murphy?
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you to all four of you for your willingness to serve.
    Mr. Bierman, I wanted to ask you a few questions about 
future USAID investments in Europe and Eurasia. I think many of 
us have a hard time understanding the set of funding priorities 
being sent to us by the administration with respect to the 
challenges that we face in this region. There is no doubt that 
we need additional military capacity, and we have stepped up to 
the plate through the Europe Reassurance Initiative. But many 
of the challenges that we face in the region are not 
conventional military challenges, and there are massive soft 
power plays being made by our adversaries in the region, which 
cannot be met if this Congress were to adopt the draconian 
funding cuts being proposed by the administration.
    I will not ask you to opine on that budget, but I want to 
ask you about two specific challenges.
    First, the Balkans. I think you might have briefly touched 
on this, but I want you to do a little bit deeper dive here. 
Russia, Turkey, and the Gulf States have initiated massive soft 
power offensives in the Balkans, and much of this coming just 
in 2017. The Russians have significantly doubled down in the 
Balkans over the last 10 months, having watched the United 
States telegraph a withdrawal from that region in part because 
of the budgets that have been submitted.
    Do you think the United States is currently doing enough in 
the Balkans to match these efforts, and what could we be doing 
better or differently?
    Mr. Bierman. Just to qualify, I have not been involved with 
the budgetary talks, but I do look at my role as an advocate 
for the agency and our mission. I am a believer, having spent 5 
years under the previous Bush administration, in the same 
bureau, and I wanted to come back to this specific job in this 
specific administration to help guide the principles of 
development.
    Look, I completely agree with what you are saying. I think 
we have got some serious issues in the Balkans specifically, as 
I mentioned earlier, with youth unemployment. I think we have 
got some backsliding with democracy. We have got some issues 
with ethnic tensions, and I do believe that the Russian malign 
influence is a serious problem not just covertly but openly.
    I think that our way forward is to work openly with the 
governments, to work openly with democracy and governance, with 
our efforts to supply energy independence through the entire 
region. I think we can also work with economic development. We 
have got some great programs specifically in the Balkans.
    I know that specifically in Serbia, for instance, we have a 
program that has worked with the Serbian Ministry for 
Construction on helping Serbia jump their permitting process, 
and since our work in this particular area, they have jumped 
103 places which has spurred construction by 20 percent. That 
impacts Russian malign influence by giving people hope for the 
future and that their direction is in a Euro-Atlantic path.
    Senator Murphy. Then let us move to Ukraine for a moment. 
USAID is involved there in a number of different ways. But our 
funding pales in comparison to the amount of very quiet money 
that is being put into Ukraine through Russian sources. Talk a 
little bit about what we can be doing more of in Ukraine maybe 
specifically with an eye towards some of the anticorruption 
programming that is still desperately needed at the local level 
as much as at the national level.
    Mr. Bierman. Well, there definitely is still work to be 
done, but we actually have made a great deal of progress with 
our e-asset declaration system with the Ukrainian Government 
and officials. It has opened transparency and it has given 
people confidence in their government.
    But we have also had a tremendous amount of success with 
the ProZorro program, which costs about $2.2 million, and we 
have leveraged more than $1.25 billion, and that basically is 
an e-procurement system that allows open and transparent 
bidding on various e-commerce throughout the government. And we 
have provided technical assistance and I think continued 
technical assistance, not just at the ministry level but also 
at the local level. I talked about this earlier. It is very 
important that we make every Ukrainian understand that they can 
be involved with their government from the grassroots all the 
way to the national level. And if confirmed, I look forward to 
working with you, Senator, and the committee on how we can be 
effective in our programs and fight the influence from Russia.
    Senator Murphy. Well, I appreciate your testimony. I hope 
that you will end up being an advocate for increased funding in 
these accounts. I think in Ukraine, we need to come to the 
realization that Putin does not want to militarily own Ukraine. 
He wants to create enough confusion and dissension within the 
ranks that he economically and politically breaks that country 
such that it decides that the fight in the east is not worth 
the hassle and they should come to some accommodation with 
Moscow. That means that it is that political and economic 
support for the country that is in many ways even more critical 
than the military support that we provide to them, and that 
happens through USAID. It cannot happen if we continue to have 
an administration that does not believe in the mission. But I 
am glad that you are signing up for the job.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you, Senator.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman. I have two very 
quick questions and then a comment.
    First to Mr. McClenny, let me just say as the only career 
nominee here today, I want to thank you for your service, and I 
appreciate those who are committed to the Foreign Service of 
the United States and have committed their lives to it. I think 
you promote America's interests abroad up front. So it is 
incredibly important.
    I have a specific question as to your post-to-be. Human 
trafficking is something that both the chairman and I and the 
chairman of the full committee have a great passion about. We 
have passed legislation that I thought was incredibly 
important. I am concerned in different parts of the world about 
human trafficking, and I am concerned about it in Paraguay.
    Could you speak to that in terms of one of your core 
missions?
    Mr. McClenny. Thank you, Senator Menendez, for the 
compliment on my service and also for the question about 
trafficking in persons in Paraguay.
    Yes, trafficking in persons is a serious issue, a real 
issue in Paraguay. We produce an annual report on developments 
in the subject matter in Paraguay. The most recent report makes 
it very clear that there remain very serious concerns in 
prosecution of individuals who have been accused of such 
crimes, in prevention of further crimes being committed, and 
also in protection of victims of these crimes.
    The Paraguayan Government, however, under President Cartes 
has recognized that this is an issue and is taking some steps 
and is working with us to advance on this. Not enough has been 
done. This clearly remains a priority and is something that we 
need to address going forward.
    Senator Menendez. And so can I glean from you a commitment 
to the committee that if you are approved, that you will make 
one of your core missions and you are not going to equivocate 
on it as it relates to other issues we may be concerned with in 
Paraguay?
    Mr. McClenny. If confirmed, sir, you have my firm pledge 
that this will be one our priorities.
    Senator Menendez. Thank you for that answer.
    I have a question for every nominee that I have asked since 
I have been on the committee, when I was the chairman of the 
full committee and now I still believe is incredibly important 
because sometimes people forget.
    If you are confirmed--this goes to every nominee--will you 
commit that if the committee or its members reach out to you 
and seek to get insights from your posts and positions, that 
you will share them freely with them? We can down the line.
    Mr. McClenny. Yes, sir.
    Mr. Trujillo. Yes, Senator.
    Mr. Braithwaite. Yes, sir. I consider it my duty.
    Mr. Bierman. Absolutely.
    Senator Menendez. And then finally just a quick comment. 
Admiral, you are extraordinarily competent for this position, 
but you sort of like have an inside track here with me because 
your wife is a Jersey girl. [Laughter.]
    Senator Menendez. And she was a Catholic schoolteacher in 
New Jersey. So that to me is really valuable. So I just want 
you to know that in addition to your competency, that does not 
hurt.
    I appreciate Mr. Bierman's commitment to the agency. It is 
incredibly important for me. If I am going to support somebody, 
I want to make sure they are supporting the agency they are 
assigned to.
    I appreciate, as I said to Mr. McClenny, the career 
commitment.
    And I generally have an affinity for Cubans even when they 
are Republican. [Laughter.]
    Senator Menendez. So thank you all for your commitment to 
be willing to serve. I may have some questions for the record. 
I would just urge you to respond to them as quickly as possible 
as the committee considers your nominations.
    Thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    We are headed for the finish line here unless anybody else 
shows up, but I do want to touch on a couple more topics.
    Mr. McClenny--and I am going to paraphrase from the 
Congressional Research Service. Paraguay is a significant 
transshipment point for Andean cocaine. Drug traffickers 
exploit its porous borders and extensive waterways. Paraguay 
has increased its capacity to interdict drugs and to conduct 
drug eradication and demand reduction activities. Their 
congress has supported cooperation with the U.S. on 
counternarcotics. They expanded their budget for a primary 
counternarcotics agency.
    Here is an article from earlier this year in the Miami 
Herald.'' In June of 2017, a Paraguayan man was charged in 
federal court in Miami with conspiring to smuggle cocaine 
through the Ciudad del Este Airport with the intent to sell it 
in the United States. The individual charged had been 
extradited to the U.S. by the Paraguayan Government on 
suspicion of using drug trafficking to raise funds for a 
Hezbollah network.
    In light of all of this, I do not ask you to opine on its 
wisdom because I do not want to put you in that predicament. 
But I do want to ask you, the President's 2018 foreign aid 
request for Paraguay would reduce our assistance to $400,000. 
That is a 95 percent cut compared to 2016, and this funding is 
primarily for military training and traditional development 
programs.
    Would that sort of cut, if enacted, which I do not believe 
it will be, but if it does, will it make it harder or easier 
for us to work with Paraguay to confront these challenges if we 
had a 95 percent cut like that?
    Mr. McClenny. I do not think it will make it harder for us 
to work with them because there is a willingness on the part of 
their government to work with us. But it will make it harder 
for us to make an impact and make a difference in this regard. 
Clearly, we would all rather have more rather than less. There 
are finite limits.
    I can pledge to you though, Senator, if confirmed for this 
position, that we will wisely steward the resources that we are 
given to make as much of an impact as we possibly can.
    Senator Rubio. And Representative Trujillo, on the OAS--and 
I think that the ranking member alluded to this. One of the 
things that undermines any international organism is the 
inability to take action. And it has been very frustrating to a 
lot of people to see 20 members representing I think it is like 
90 percent of the GDP of the western hemisphere vote to condemn 
what has happened in Venezuela, which is a direct violation of 
the very reason why the OAS exists, and that is to protect 
democracy. And the inability of get a handful of smaller 
nations to come on board for a variety of reasons--in the 
Caribbean, St. Vincent and Grenadine, Dominica, St. Kitts and 
Nevis have all voted to support Venezuela against efforts by 
the other countries to confront them. And then you have had a 
series of abstentions from places like Haiti and the Dominican 
Republic, Trinidad and Tobago, Grenada, et cetera.
    This is very frustrating. And in particular, it is 
frustrating when you view this list and you see in the case of, 
for example, Haiti and the Dominican Republic, nations who 
receive significant assistance from the United States but have 
chosen, for a variety of reasons, primarily financial in my 
opinion, to line up on behalf of a dictatorship and basically 
call into question the very purpose of the OAS so they cannot 
take collective action.
    And so I guess my question is in regards to that, how do 
you balance between maintaining friendly relationships and not 
wanting to be the threatening power that goes in and tells them 
we are going to cut off your money unless you vote with us and 
at the same time justifying to the American taxpayer why we 
continue to pour money into the coffers of governments who in 
turn go to international organisms and vote against us in 
violation, for example, of the democracy they enjoy and of the 
very purpose of the organization in which the serve.
    I guess the central question is if the OAS is not able to 
take collective action against such clear-cut violations of the 
democratic order, why do we have an OAS. Is that not a central 
long-term challenge?
    Mr. Trujillo. Thank you, Senator. I think it is the 
greatest challenge. The countries siding with Venezuela is the 
biggest challenge that undermines the entire goal of the 
organization, an organization that is committed to democratic 
values, that is committed to security, that is committed to 
human rights, in which you have a country that clearly cannot 
be a bigger violator of those three pillars and countries 
within the organization that support them. I think that is 
central and it is the biggest challenge I will face.
    I think one thing that the Senator brought up--and 
obviously it is under Congress' purview--but the ability to 
influence trade and influence economic sanctions and influence 
aid, I think those are great tools in our toolbox that we can 
ultimately bring out, if necessary, in order to have some of 
these countries reconsider their position.
    Senator Rubio. Admiral, a more open-ended question. But 
Norway, obviously because it shares a 120-mile land border and 
a 14-mile maritime border with Russia--they are up close to 
this issue and have been historically for a very long time 
throughout the Cold War and beyond. Both from your military 
background and now entering the diplomatic world, is there 
anything that Norway does that we can learn from, anything they 
do particularly well with regards to Russia? Are there any 
lessons to be learned about how they deal with Russia that 
could be applied to the broader European theater and/or the 
United States?
    Mr. Braithwaite. Thank you, Senator, very much for the 
question.
    Norway is in a much different situation, of course, than 
the United States is. They are not a super power. They are not 
viewed by the Russians as a great threat. They, in fact, have 
been a good neighbor to the Russians working through Arctic 
Council initiatives. Of course, they share fishery interests. 
There is border patrol, search and rescue.
    But as you well know, sir, the Norwegians are very wise to 
the ways of Russia, their interests. As Senator Menendez had 
indicated earlier, their interests around the globe can be 
suspicious.
    The Norwegians engage directly. I believe the United States 
could probably be a little more direct. And perhaps there is a 
way that we could partner with the Norwegians. I think the 
Arctic Council, sir, is a good start. There are numerous 
interests there, both on behalf of the Russians as well as the 
United States, as well as every member of the council. And I 
would intend, if so confirmed, sir, to continue that, be very 
proactive in our engagement with the Arctic Council and our 
relationship with Norway, sir.
    Senator Rubio. Finally, Mr. Bierman, my question for you is 
kind of a variation of the same question I asked Mr. McClenny, 
and that is, if you look at the President's fiscal year 2018 
budget request for assistance to Europe and Eurasia, it was 
significantly less than the fiscal year 2016's actual funding. 
And it comes at a time in which Putin--and I do not say Russia. 
I say Putin because Russian people are not doing this. It is 
Putin who has made this decision--are increasingly trying to 
interfere in the Western democratic order particularly in 
Europe.
    And so in the context of that and of the necessity to be 
helpful to our allies in the region, I am not asking you to 
opine on the wisdom. That is a policy determination. I am not 
trying to get you cross with the administration. But I guess my 
view is if such a reduction in funding--would it be helpful--
and I think I know the answer, but would it be helpful or 
hurtful to our efforts to increase our ability to cooperate and 
assist allies in the region in need of that assistance?
    Mr. Bierman. Well, thank you very much for that question, 
Senator.
    Again, although I have not worked directly with this 
administration and the agency on the budget, I do look forward 
to working with you specifically as we move ahead.
    And I am not trying to avoid that question. I think it is a 
matter of making the argument as to why assistance and 
development matters. And I look forward to making that 
argument, to looking historically as to our successes. We have 
seen some great successes. We want to make sure that our 
investment in the past is an investment that continues into the 
future. And I am excited about that opportunity, and I can tell 
you you have my commitment.
    Senator Rubio. Well, to all the nominees in the different 
contexts of the two that are going to particular countries and 
to you, Mr. Bierman, that is going to be involved in a 
programmatic effort in a larger region, and of course, Mr. 
Trujillo, who is going to be, hopefully, representing us in a 
broader multinational forum, the challenge when it comes to 
aid--the fundamental question a lot of Americans ask--first of 
all, they think it is like 30 percent of our budget when it is 
less than 1 percent. But the others are of the perception that 
foreign aid is charity, that we are doing this like a charity 
contribution. And the harder argument, the one we need to make 
is that these contributions that we make, appropriately 
channeled--we do not want the money being corruptly used--
actually has both national security and soft power elements to 
it. This is good for America to do this. It is actually cheaper 
than the alternative. If we could help Paraguay, if we could 
help Central America, if we could help these nations confront, 
for example, transnational crime and the flow of illicit drugs, 
we could save, theoretically, a lot of money on the back end 
fighting that when it reaches the homeland.
    So it is a challenge that all of you will face, perhaps a 
little bit less in Norway, though certainly in the military 
scope and the wisdom of NATO, it is relevant. And it is one 
that I hope all of you will be forceful advocates for. Again, 
we are not talking about wasting money. We are not talking 
about giving money to people that do not need it, but we are 
talking about why spending a dollar at the front end in helping 
capacitate countries could save us a lot of money at the back 
end when those problems reach us here. And I hope all of you 
will be engaged in that effort, if confirmed.
    So I want to thank all of you. Unless Senator Menendez has 
anything else, I want to thank all of you for being here. For 
your families sitting through this hearing, I appreciate it as 
well. The fact that you did not get the full committee here is 
not bad news. It is good news. They know you are here. They 
know your nomination. They have read it. And obviously, a lot 
of them feel comfortable about it or they would be here asking 
tough questions. And to the members that came, I thank them 
because their questions were important. It was a really good 
hearing. So again, I thank you for your service and your 
willingness to continue to serve.
    The record of this hearing will remain open until the close 
of business on Friday.
    And without objection, this hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
         to Hon. Brock D. Bierman by Senator Benjamin L. Cardin

Human Rights:
    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. I served on the State Department's Trafficking in Person's 
Task Force in the George W. Bush administration. I was asked to do so 
because of my interest in the issue and my knowledge about the 
challenges in Moldova. During the time I sat on the Task Force, it was 
charged with determining which countries were most at risk of 
trafficking and where a significant increase of funds could make an 
immediate difference. I argued successfully for the inclusion of 
Moldova, and as a result the additional funds had an impact on 
protecting basic human rights in Moldova. I look forward to continue 
advocating for and supporting programs that further the protection of 
fundamental freedoms throughout Europe and Eurasia, if confirmed.

    Question 2.  What are the most pressing human rights concerns in 
Europe and Eurasia today? What are the most important steps you expect 
to take--if confirmed--to advance human rights and democracy in Europe 
and Eurasia? What do you hope to accomplish through these actions?

    Answer. The most pressing human rights concerns in Europe and 
Eurasia today include efforts to limit the fundamental freedoms of 
citizens--the freedom of association, freedom of assembly, freedom of 
the press and expression, and the freedom of conscience. Without these 
basic freedoms that are so critical to citizen participation and human 
dignity, the prospects for improving people's lives are greatly 
diminished. Another major, related concern is the closing space for 
civil society. When regular citizens are harassed, or worse, just for 
working together in associations and other non-governmental groups, 
this also stifles personal freedom and dignity. Finally, inclusion 
continues to be an ongoing challenge in the region. Members of various 
minority and underrepresented groups continue to face great challenges 
to be considered equal members of society. Unfortunately, Russia 
sometimes exploits these societal divisions to advance its own agenda.
    If confirmed, I will work to ensure that USAID's programs in Europe 
and Eurasia will focus on continuing and strengthening our commitment 
to these fundamental freedoms through support for civil society, fair 
political competition, freedom of expression and media, and human 
rights. I will also work to continue our focus promoting an inclusive 
approach to development that leaves no one behind, including women, 
youth and marginalized communities.

    Question 3.  If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Europe and Eurasia 
in advancing human rights, civil society and democracy in general?

    Answer. The central challenge for addressing human rights concerns 
is underdeveloped democratic institutions and democratic backsliding in 
the region. In some countries in the region, old patterns of 
concentrating political power mostly in executive authority have re-
emerged. Those governments in the region that have shown the least 
progress in building functioning democratic institutions that can check 
executive authority are also those that have the most significant human 
rights issues. Closing space for civil society, and the associated 
harassment, restriction and repression of non-governmental 
organizations and activists, has been particularly severe in Eurasia, 
but has now spread further West to some Balkan and Central European 
countries. Other challenges include longstanding ethnic and religious 
divides that complicate efforts to build an inclusive democratic system 
and social understandings that marginalize some members of the 
community. Finally, I understand that establishing and strengthening 
resilient, functioning democratic institutions, processes, and values 
takes years of consistent effort--and will not be complete overnight.

    Question 4.  Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Europe and Eurasia?

    Answer. Yes.

    Question 5.  What will you do to build people-to-people ties 
between Americans and Europeans, and to support European and Eurasian 
civil societies, human rights activists, and independent media? What do 
you need from Washington-based U.S. officials on this?

    Answer. If confirmed, I will prioritize strengthening understanding 
between the people of the U.S. and of the region. I feel strongly about 
this, given my own experience on an exchange to the region through the 
American Council of Young Political Leaders many years ago and from my 
service as a volunteer trainer for an IRI program in Ukraine.
    I want to do more to help the American public understand the value 
of such engagement with citizens from the region through greater 
outreach. Similarly, I think we can do more to tell our story to the 
people of the region. Both of these efforts can be carried out through 
people-to-people exchanges. For example, I hope to better galvanize the 
East European diaspora in the United States to convey these message of 
friendship and partnership. I am aware that many of USAID's programs in 
the region already work to forge and strengthen these ties, but if 
confirmed, I will work to think about how we can increase those 
efforts. As part of that process, I will look for input and ideas from 
my colleagues in both the executive and legislative branches in 
Washington. I also look forward to working with you on implementing the 
provisions of the Countering America's Adversaries Through Sanctions 
Act that you authored earlier this year that was signed into law, and 
appreciate your leadership on these issues.
Diversity:

    Question 6.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups at 
USAID?

    Answer. The staff in the Bureau for Europe and Eurasia will be the 
most important part of our success. In order to achieve our shared 
goals, the Bureau must have a supportive and welcoming environment for 
all staff. As someone who hopes to lead the Bureau, I recognize that 
leadership and support from the top is essential to creating this type 
of work environment. Administrator Green has made it clear that USAID 
is ``committed to a culture of inclusion, integrity, dignity, and 
respect.'' I share the Administrator's vision for a workplace that 
supports diversity and inclusion. I also look forward to ensuring all 
staff members in the Bureau have opportunities to grow professionally, 
develop skills, and benefit from training and capacity-building 
opportunities.
    If confirmed, I will be interacting with all the staff members in 
the Bureau for Europe and Eurasia and will keep an open door policy. I 
plan to host two ``brown bag'' lunches each week, inviting every member 
of the staff of the Bureau for Europe and Eurasia, and inviting only 8 
staff at a time, until I have had a chance to meet every member of the 
Bureau. These meetings will be voluntary, but will give me an 
opportunity to interact with every member of the Bureau in a small 
group setting, and will be an important part of my open door policy. I 
plan to continue these ``brown bag'' lunches on a bi-weekly basis after 
I have had a chance to meet with every staff member.

    Question 7.  What steps will you take to ensure each of the 
supervisors within the Bureau of Europe and Eurasia are fostering an 
environment that is diverse and inclusive?

    Answer. If confirmed, I will insist that all supervisors and 
managers are fostering an environment that is open and collaborative, 
in which all cases of harassment and discrimination are dealt with 
swiftly, and where every staff member feels respected and empowered. I 
will make sure that all supervisors and managers are able to access 
training and capacity-building opportunities so they can ensure that 
the Bureau for Europe and Eurasia is one that welcomes and supports 
staff from all backgrounds. If confirmed, I will enforce a zero 
tolerance for any form of harassment or discrimination.
Conflicts of Interest

    Question 8.  Do you commit to bring to the committee's attention 
(and the USAID Inspector General) any change in policy or U.S. actions 
that you suspect may be influenced by any of the President's business 
or financial interests, or the business or financial interests of any 
senior White House staff?

    Answer. Yes.

    Question 9.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. Yes.

    Question 10.  Do you or do any members of your immediate family 
have any financial interests in any country abroad?

    Answer. No.
European Resilience

    Question 11.  The Russia sanctions bill that passed resoundingly in 
the Senate by 98 votes to 2 and informed the bill President Trump 
signed into law included a robust authorization for assistance to 
counter malign Russian Government influence across Europe and Eurasia. 
In contrast, the administration's FY 18 budget request called for 
significant cuts across Europe, at a time when Russia is aggressively 
attacking democratic institutions and exerting its influence across the 
continent. Congress will likely restore that funding through 
appropriations. What is your plan for disbursing U.S. assistance in 
Europe and Eurasia? What are your priorities?

    Answer. The scale of the challenges facing Europe and Eurasia is 
hard to overstate. A still weakened European economy, malign Russian 
influence, changing demographics, and mass migration present a 
development context that requires bold USAID engagement across the 
region.
    Although I was not involved in the formulation of the FY 2018 
budget request for the State Department and USAID, I understand that it 
supports the President's commitments to make smart investments to 
further the capacities of governments, civil society, and the private 
sector to implement solutions to their development challenges. I 
strongly believe that USAID needs to be as efficient and effective as 
it can with its budget, regardless of the level of funding. Moreover, I 
plan to ensure that our program mechanisms are flexible enough to 
respond to emerging situations in a timely manner.
    I look forward to working with you as we establish shared 
priorities for the region, and am thankful for your leadership on 
countering Russian malign influence. I believe that fighting the 
scourge of corruption, promoting greater regional economic and energy 
independence, and supporting democratic governance will be key 
priorities for our work in the region going forward and for countering 
Russian influence.
Legacy Funds
          The U.S. established a series of ten enterprise funds across 
        Central and Eastern Europe and the former Soviet Union, to 
        ``jump-start'' capitalism in the former communist countries. 
        They experienced varying degrees of financial success (in that 
        some ended with considerable more in their investment funds 
        than they started with) and in most cases these proceeds were 
        turned into legacy foundations to provide grants to civil 
        society actors across the region. There is reportedly more than 
        $1 billion currently in the combined endowments of these legacy 
        foundations, generating $50-75 million a year for expenditures 
        in grants.

    Question 12.  With the resurgence of malign Russian influence in 
the region, should the boards of directors of these respective 
foundations be obliged to consider directing some or all of their 
grant-making towards projects and programs that address this urgent 
threat?

    Answer. I understand that the Legacy Foundations were designed to 
operate with a great deal of autonomy with the direction of an 
independent Board of Directors, and that they work to promote private 
sector development and policies and practices conducive thereto in 
their host countries. That said, I'm also aware that the U.S. 
Government has a permanent non-voting liaison to all the boards, a 
position often filled by the U.S. Ambassador but sometimes by USAID, 
which maintains a direct line of communication between the U.S. 
Government and the Legacy Foundations.
    If confirmed, I also look forward to learning more about USAID's 
relationship with the Legacy Foundations in the region and to exploring 
avenues, if any, to guide their future investments.

    Question 13.  How do you intend to engage with these boards in 
order to persuade them to direct funding towards this end?

    Answer. I understand that the Legacy Foundations were designed to 
operate with a great deal of autonomy with, and under the direction of 
an independent Board of Directors. If confirmed, I look forward to 
learning more about our engagement with the Legacy Foundations and to 
exploring avenues, if any, to guide their future investments.

    Question 14.  The original USAID grants creating these Enterprise 
Funds (EFs) called for evaluations at mid-point and end point, but 
these evaluations apparently did not take place. So, as Congress 
considers proposals to create new Enterprise funds in other countries/
region, we have no official assessment of these earlier cases. I 
understand that USAID did conduct an overall evaluation of these 
enterprise funds in the Europe and Eurasia region just last year. Do 
you commit to share the findings of that evaluation with the committee 
upon your confirmation?

    Answer. While I have not read the report, I understand that USAID 
did recently commission its first ever external evaluation of the 
Europe and Eurasia Enterprise Funds and Legacy Foundation, from the 
launching of the first Funds in Poland and Hungary in 1990, through the 
Legacy Foundations' current private sector development work as the U.S. 
Government's enduring assistance legacy across Central and Eastern 
Europe.
    My understanding is that the evaluation final report is nearing 
completion. Per USAID's evaluation policy, once finalized, the 
evaluation report will be made publicly available via the Agency's 
Development Experience Clearinghouse (DEC) website for the sake of 
accountability and the use of evaluation findings by all interested 
stakeholders. I will also ensure the committee receives a briefing on 
the report.
Democratic Backsliding
    Question 15.  Hungary and Poland are both engaged in democratic 
backsliding that threatens their judicial independence, press freedom, 
and the functioning of their civil societies. Nevertheless, U.S. 
assistance has been redirected away from Central Europe in recent years 
as these countries have integrated into the E.U. What scope do you see 
for regional programs and other efforts to bolster democratic 
institutions in such places?

    Answer. I agree that there are significant challenges to democratic 
institutions in Poland and Hungary. Support for democratic institutions 
in those countries could potentially be addressed through the framework 
of regional programs and in a targeted manner. If confirmed, I would 
work closely with the Department of State and would consult with 
Congress on determining appropriate levels of engagement for supporting 
democratic institutions in Central and Eastern Europe.
Energy Diversification:
    Question 16.  With the Russian Government continuing to exert 
pressure on European states through the energy sector, how will you 
utilize USAID assistance programming to boost resilience to such 
pressure and increase energy diversification on the continent?

    Answer. I recognize the need for programs that address critical 
areas such as energy security Over-reliance on Russian sources of 
energy leaves many of our partners in the region vulnerable to Russia's 
malign influences. I understand that USAID entered into partnerships 
with U.S. industry associations and manufacturers to bring U.S. 
expertise, technology, and best practices in electricity, gas, 
cybersecurity, and critical infrastructure to the region. Also, through 
a combination of regional and bilateral programs, USAID continues to 
supports countries in the region with developing regional gas and 
electricity markets that are integrated with the European Union, 
leading to improved energy security through (1) diversification of 
market suppliers; and (2) increased energy sector investments, 
resulting from transparent and stable legal and regulatory frameworks.
    If confirmed, I look forward to exploring these partnerships and 
programs in greater depth and consulting with Congress on how we can 
best support energy security in the region.
Discrimination/Xenophobia

    Question 17.  With increased incidents of hate crimes in Europe, 
concrete initiatives addressing racism, discrimination, and xenophobia 
are critical for the safety of our diplomats. I have annually supported 
funds to address anti-Semitism in Europe. More broadly, how will you 
work to direct funds in Europe to counter racism and xenophobia? How do 
you plan to include LGBT issues in USAID assistance? Do you see issues 
of tolerance and non-discrimination as relevant to stability in Europe 
and Eurasia?

    Answer. Tolerance and non-discrimination are important to 
maintaining stability in the region, and I applaud your leadership on 
this issue. I am deeply concerned about the rise of extremist groups 
and those who are willing to use violence to promote their agendas. I 
understand that currently USAID's Office of Transition Initiatives' 
programming in Ukraine promotes an inclusive civic identity and has 
also worked to promote human rights in Macedonia. If confirmed, I would 
welcome the opportunity to explore new avenues to address these 
pressing issues.
Corruption/Rule of Law

    Question 18.  Russia continues to use extensive corruption networks 
to influence political actors in vulnerable parts of Europe, as well as 
to deny its own citizens the transparent, accountable government they 
deserve. How will you leverage USAID resources, in concert with State 
and DoJ partners, to address corruption and boost rule of law in Europe 
and Eurasia?

    Answer. Corruption, often defined as the abuse of entrusted power 
for private gain, is indeed a major and growing problem threatening the 
stability, prosperity and security of Europe and Eurasia. In many ways, 
corruption can also be conceived of as the manifestation of poor 
governance and inadequate rule of law. As a result, sound efforts of 
combat corruption need to work to strengthen democratic governance and 
the rule of law.
    USAID programs can work to deter, detect, and combat corruption 
through increasing transparency and openness in the public sphere; 
support watch-dog civic organizations; support investigative 
journalists; promote open government and e-governance systems; support 
special anti-corruption institutions and processes; and strengthen 
judicial independence and capacity, among other areas.
    In coordination with State and DOJ partners, USAID's anti-
corruption efforts include working with government partners to enhance 
their capacity to reduce corruption by increasing the transparency and 
accountability of government institutions. For example:

  <diamond> With USAID assistance, eight Europe and Eurasia countries 
        are active in the Open Government Partnership (OGP) and have 
        committed to make their governments more transparent, though 
        the extent and depth of this involvement varies from country to 
        country. In fact, Georgia is currently leading the OGP.
  <diamond> The Organized Crime and Corruption Network--a USAID-
        supported collective of investigative journalists who expose 
        corruption--partnered in the release of the ``Panama Papers,'' 
        the Azerbaijan Laundromat, and the recent ``Paradise Papers.'' 
        This project sheds light on the illicit financial networks used 
        by autocratic regimes. These illicit networks also divert 
        significant resources from the Europe and Eurasia economies, 
        markets and government budgets.

    If confirmed, I anti-corruption efforts will remain a major 
priority and I will work to build on the progress that has been made, 
while also exploring new ways to support the rule of law, good 
governance practices, and strong democratic institutions.



                               __________


      Responses to Additional Questions for the Record Submitted 
          to Hon. Brock D. Bierman by Senator Robert Menendez

    Question 1.  Will you advocate internally for an end to the Hiring 
Freeze at USAID?

    Answer. USAID and the Bureau for Europe and Eurasia cannot further 
the Administrator's goal of ending the need for foreign assistance 
without a highly trained and capable workforce. If confirmed, I will 
work to meet the Bureau for Europe and Eurasia's staffing requirements, 
and to provide all staff with training and capacity-building 
opportunities. I also commit to working with the Administrator to fill 
all key positions in the Bureau.

    Question 2.  How do you plan to address the effects of Sec. 
Tillerson's hiring freeze on Foreign Service officers who would 
ostensibly serve under the auspices of your bureau?

    Answer. Given the current constraints on hiring new Foreign Service 
Officers, I believe strategic workforce-planning is critically 
important to ensuring the Bureau for Europe and Eurasia can deliver on 
its mission. If confirmed, I look forward to being a part of the 
Agency's strategic workforce-planning decisions, and to advocate for 
the staffing needs of the Bureau for Europe and Eurasia. I will also 
work to make sure the Bureau's Foreign Service Officers receive the 
training and capacity-building opportunities they need to be 
successful.

    Question 3.  Following the fall of the Berlin Wall, USAID 
established so-called Enterprise Funds to leverage private sector 
investment into regions previously in the Soviet sphere of influence. 
From 2000-2010 nine so-called legacy foundations were established in 
East Europe and Eurasia to build on these modes, which essentially made 
equity investments in small and medium sized firms in those regions. 
These were largely, although perhaps not altogether, successful and 
profitable, with earned funds being returned to the U.S. Treasury or 
establishing endowments. As I'm sure you're aware, certain committees 
in Congress have a hold on the disposition to the Treasury of the 
Russia Enterprise Fund, which currently totals about $150 million.

   Do you know why these funds are being held?

    Answer. I understand that in accordance with the terms of the U.S. 
Russia-Investment Fund's (TUSRIF) grant agreement, following TUSRIF's 
active investment phase, the liquidation proceeds can only be 
distributed to 1) a non-profit entity or entities for the purpose of 
providing assistance for private sector development in Russia, 2) the 
United States Treasury, or 3) a combination of 1 and 2 above. In 
February 2007, USAID notified Congress of a plan for the distribution 
of TUSRIF's assets which stipulated that TUSRIF would return one-half 
of the liquidation proceeds,million to the U.S. Treasury and that 
TUSRIF would use the other half to establish the U.S.-Russia Foundation 
for Economic Advancement and the Rule of Law (USRF).
    A hold was placed on the Congressional notification for the portion 
of the funds to be returned to the U.S. Treasury, and since that time 
USAID and its congressional oversight and appropriations committees 
have not been able to agree on a path forward for the funds that remain 
in TUSRIF--approximately $147 million.
    If confirmed, I look forward to working with Members of the Senate 
Foreign Relations Committee, and other committees of jurisdiction to 
bring this issue to a resolution.

    Question 4.  As you are also probably aware, in the Countering 
America's Adversaries through Sanctions Act that Congress passed almost 
unanimously this year, we called for the establishment of a fund to 
support efforts to counter malign Russian influence, disinformation 
campaigns and propaganda. Do you believe that these frozen enterprise 
funds could be put to good use building democratic institutions that 
would help build resiliency in Eastern European and Eurasian countries 
against Russian disinformation and interference?

    Answer. I share your commitment to building democratic institutions 
in Europe and Eurasia, as democratic institutions are a critical to 
counter Russian malign influence. I appreciate your leadership on this 
issue and look forward to working with you on implementing this new 
law. Strong democratic, market-based economies serve as bulwarks 
against the expansion of Russian malign influence in Europe and 
Eurasia. While I am aware that approximately $147 million of funding 
remains in the U.S.-Russia Investment Fund (TUSRIF), I have not been 
fully briefed on the specifics of how those funds may be used. If 
confirmed, I commit to working with all stakeholders, including USAID's 
congressional oversight and appropriations committees, to resolve the 
impasse over the TUSRIF funds and build resiliency to Russian malign 
influence in Europe and Eurasia through strong democratic institutions.

    Question 5.  If so, what is your plan to ensure the release of 
these funds?

    Answer. As mentioned above, the objective of the proceeds is to 
provide assistance for private sector development. If confirmed, I 
commit to working with all stakeholders, including USAID's 
congressional oversight and appropriations committees, to resolve the 
impasse over the TUSRIF funds and build resiliency to Russian malign 
influence in Europe and Eurasia through strong democratic institutions.



                               __________


      Responses to Additional Questions for the Record Submitted 
           to Hon. Brock D. Bierman by Senator Jeanne Shaheen

    Question 1.  Mr. Bierman, as you may know, I have introduced 
legislation with Senator Wicker to authorize the establishment of an 
enterprise fund in Bosnia and Herzegovina, which lags the farthest 
behind the rest of Europe when compared to other economies in the 
Western Balkans. Last year, USAID produced an assessment of my proposal 
that found an enterprise fund in Bosnia would effectively support U.S. 
foreign policy objectives there. Have you read the assessment, and do 
you agree that an enterprise fund in Bosnia would fill a gap in the 
financing opportunities available to small business in Bosnia?

    Answer. Yes, I have been briefed on that assessment and if 
confirmed, I commit to studying this issue further and consulting with 
you.
    Bosnia clearly faces significant economic challenges and is one of 
the most fragile countries in the region. The 2016 internal USAID 
assessment found that an investment fund could effectively support U.S. 
foreign policy objectives in Bosnia. Continued economic growth 
assistance from USAID to support economic reforms and improve the 
enabling environment for Bosnian businesses and entrepreneurs will be 
critical to the success of such a fund. A Bosnia enterprise fund would 
benefit from the larger existing macroeconomic and trade-oriented 
support provided by the World Bank, European Bank for Reconstruction 
and Development and other multilateral financial institutions.

    Question 2.  Mr. Bierman, the key to addressing many challenges in 
the Western Balkans remains EU enlargement and integration. That said, 
each of these countries still has a considerable distance to travel 
before they might join the EU. How can the U.S. continue to encourage 
EU accession in the Western Balkans?

    Answer. EU accession represents a defining objective for USAID-
assisted countries in the Western Balkans. As I mentioned during my 
nomination hearing, 11 USAID-assisted countries are now members of the 
EU. This is not only a testimony to USAID's efforts and legacy, but 
also to the vision and intent of Congress. These 11 countries have 
increased their U.S. imports from only $2 billion in 1995 to more than 
$10 billion annually in 2015, and as development peers, they have 
contributed over $1.4 billion to development in 2014, up from less than 
$200 million in 2002. Clearly, the goal of EU accession is not only 
central to addressing current challenges in the Western Balkans, but is 
very much in America's economic and national security interest.
    USAID programs promote democratic consolidation and economic growth 
necessary to bolster our partner countries' efforts to progress toward 
EU accession. Work in Serbia and Macedonia is on the vanguard of this 
effort, but we will also continue to drive forward reform and address 
any backsliding in Bosnia and Kosovo.
    If confirmed, I look forward to working with you, the EU, and our 
partners in the region to sharpen the focus of our assistance efforts 
and to do what we can to accelerate EU accession across the Western 
Balkans.

    Question 3.  Mr. Bierman, a large proportion of USAID funding goes 
to Ukraine. I believe the U.S. must continue to resolutely support the 
democratic aspirations of the Ukrainian people, including through 
assistance to the Ukrainian Government, civil society, and other actors 
that are integral to the success of that country. In particular, the 
U.S. must encourage political leaders in Ukraine to continue with 
critical reforms to their judiciary, in part to ensure that the 
corruption that has plagued prior governments is rooted out. How do you 
assess Ukraine's anti-corruption efforts up to this point, and if 
confirmed, will you continue to emphasize the importance of judicial 
reform and anti-corruption efforts to Ukrainian political leaders?

    Answer. Corruption is a central problem in Ukraine and across the 
region, and I appreciate all the efforts this committee has made to 
tackle corruption around the world.
    Anti-corruption progress has been made in targeted areas in 
Ukraine, including in the successful implementation of Prozorro, a 
full-service electronic public procurement system which has saved an 
estimated $1.27 billion since its launch in February 2015. However, 
significant challenges remain.
    I believe that corruption is a manifestation of governance 
problems, and as a result, efforts to combat corruption need to be 
based on efforts to improve democratic governance. If confirmed, I will 
continue to emphasize the importance of judicial reform and anti-
corruption efforts in Ukraine and across the broader region, including 
through embedding good governance into our economic growth and social 
sector programming.



                               __________


      Responses to Additional Questions for the Record Submitted 
         to Kenneth Braithwairte by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Having had the opportunity to serve in the United States 
Navy for over 30 years, I have taken part both as a junior officer and 
again as a senior officer (Rear Admiral) in numerous humanitarian 
actions on behalf of Our Nation. During the Balkans Crisis, I was 
awarded the Department of Defense Humanitarian Service Medal for my 
actions in support of Kosovo Refugees. I was assigned as one of the 
liaison officers at the temporary resettlement camp at Fort Dix, New 
Jersey. In this role I interacted directly with the refugees and was 
able to convey the aspects of democracy and freedoms that we in our 
country enjoy. I know those that we supported had a favorable 
impression of the United States and sought to later immigrate to the 
US. I was later as a Navy Captain (O-6) deployed to the western Sahara 
in Senegal to work with Senegalese tribes who had limited access to 
medical care. I was part of a humanitarian effort directed towards 
establishing temporary primary care missions in support of US efforts 
to extend democracies into these regions. This was in alignment with 
our national effort to ensure these peoples could understand and 
appreciate the freedoms our country promotes in contrast to the efforts 
of AL Qaeda and other Islamic Terrorist Groups attempting to influence 
them. We were successful in that our enemies were unable to solicit or 
recruit from the regions where we were involved. Finally, also as a 
Navy Captain, I was deployed to Pakistan in 2005-2006 to take a direct 
leadership role in Our Nations efforts to respond to the devastating 
earthquake affecting thousands of Pakistanis on the eve of their winter 
season. Our efforts were directed to ensure those impacted knew of our 
compassion but also the manner in which our democratic principles 
directed our actions. Here again we wanted to ensure that those we 
interacted with understood and appreciated our freedoms in contrast 
with those from radical Islamic groups that were also operating in 
these regions. As the lead for all Strategic Communications, our direct 
efforts led to a Gallup Poll shift in the perception of US actions 
among Pakistanis of nearly 50 points, from a low upon arrival of 23 
percent favorable to 79 percent favorable upon conclusion of our 
mission. I am very proud of all my teams direct efforts which in turn 
led to my second award of the Department of Defense Humanitarian 
Service Medal.

    Question 2. What are the most pressing human rights concerns in 
Norway today? What are the most important steps you expect to take--if 
confirmed--to advance human rights and democracy in Norway? What do you 
hope to accomplish through these actions?

    Answer. Norway has a strong record on human rights and is a good 
partner for the United States in promoting human rights around the 
world. Norway is one of the world's most generous providers of 
development aid, spending more than one percent of its GDP per year on 
assistance. A portion of these funds promotes human rights and 
democracy. Norway is also a strong NATO Ally that is dedicated to 
upholding the values upon which the Alliance was founded. As with every 
country, Norway has some incidence of societal problems such as 
violence against women and children. NGOs have also reported incidents 
of anti-Muslim and anti-immigrant speech and sentiment in Norway. If 
confirmed, I will encourage Norway to continue protecting human rights 
at home and abroad. I will also regularly engage with representatives 
from government, political parties, and nongovernmental organizations 
to stress the importance of tolerance and diversity and to share best 
practices and new ideas for promoting human rights.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Norway advancing 
human rights, civil society and democracy in general?

    Answer. Human rights are widely respected in Norway and its legal 
framework for protecting human rights meets international standards, so 
any obstacles to addressing human rights issues must be viewed in this 
context. Civil society and democratic institutions are both strong in 
Norway. To the extent that Norway exhibits human rights problems, they 
are largely societal and are adequately addressed by the country's 
judicial system, government institutions, and non-governmental 
organizations. If confirmed, I will work with those institutions and 
organizations to exchange experiences and best practices to further our 
shared values.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Norway?

    Answer. Yes, I am committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Norway.

    Question 5. Will you and your embassy team actively engage with 
Norway to address cases of key political prisoners or persons otherwise 
unjustly targeted by Norway?

    Answer. Norway has a strong human rights record and generally 
independent and impartial judiciary. There are no reports of political 
prisoners or detainees, or politically motivated prosecutions, in the 
country. If confirmed, I will call out any future cases of this kind if 
they occur, and work with the Norwegian Government to encourage their 
resolution in accordance with Norwegian and international law and 
commitments.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. If confirmed, I will ensure that Embassy Oslo staff have 
access to appropriate training on Leahy Law requirements. I will also 
ensure Embassy Oslo thoroughly vets individuals and units it nominates 
to participate in U.S.-funded security assistance activities.

    Question 7. Will you engage with the people of Norway on matters of 
human rights, civil rights and governance as part of your bilateral 
mission?

    Answer. If confirmed, I will make matters of human rights, civil 
rights, and governance part of Embassy Oslo's regular public outreach. 
I believe these are excellent areas for people-to-people engagements 
where our citizens can exchange views, experiences and best practices. 
Given Norway's excellent record on these issues, I will also look for 
opportunities where we can jointly cooperate to provide expertise to 
third countries.

    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the State Department?

    Answer. I appreciate the importance of fostering diverse and 
inclusive teams. Through my military career and experience in business, 
I have seen the value of diversity in leadership positions. In keeping 
with Secretary Tillerson's strong emphasis on diversity, if confirmed I 
will develop an inclusive work environment at Embassy Oslo that 
encourages different perspectives.

    Question 9. What steps will you take to ensure that supervisors at 
the Embassy foster an environment that is diverse and inclusive, 
including in terms of gender, ethnicity, and other characteristics?

    Answer. I will ensure that all supervisors receive regular formal 
training and guidance on EEO principles, diversity, and inclusion. In 
addition to leading by example, I will monitor the supervisors at the 
Embassy to ensure they are fostering an environment that is diverse and 
inclusive.

    Question 10. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 12. Do you or do any members of your immediate family have 
any financial interests in Norway?

    Answer. No.

    Question 13. Have there been any material changes to your financial 
assets, income, or any other information requested by the OGE financial 
disclosure form since the date you signed it? If so, please list and 
explain below, and whether you have raised them with OGE.

    Answer. I know of no significant change in my financial affairs 
since I filed my report. I am committed to ensuring that my official 
actions will not give rise to a conflict of interest and will remain 
vigilant with regards to my ethics obligations.

    Question 14. Russia Sanctions: Unity with European partners on 
Russia sanctions is critical to their success. What is your diplomatic 
plan to build support within Norway for stronger sanctions on Russia?

    Answer. Although Norway is not a member of the EU, it joined the 
United States and the EU in imposing economic sanctions on Russia in 
2014 following Russia's invasion of Ukraine and occupation and 
attempted annexation of Crimea. It also suspended military-to-military 
cooperation with Russia. If confirmed, I will continue to build support 
within Norway for stronger sanctions on Russia by communicating the 
importance of Russia sanctions to leaders across the Norwegian 
Government, and working with Norway to find ways to minimize the impact 
of sanctions on the Norwegian economy.

    Question 15. Russian Malign Influence: How will you seek to boost 
resilience to Russian meddling within Norwegian institutions and civil 
society? What assistance priorities will you push with Norwegian 
counterparts to shore up resilience elsewhere in Europe?

    Answer. Russia has undertaken a whole-of-government campaign aimed 
at undermining democratic and free-market processes and core Western 
institutions. In Norway's September 11 parliamentary elections, local 
authorities made a last-minute decision to count all ballots by hand 
after security experts raised the possibility of hacking attacks 
against the computerized ballot scanning system used in some 
localities. Norway is more resilient to Russian misinformation due to 
their extremely high rate of news readership--79 percent of the 
population ages 9-79 reads a physical or online newspaper daily. If 
confirmed, I will stand firmly with Norway and the rest of our NATO 
Allies in countering Russia's malign influence. I will encourage Norway 
to join us in cooperating with our NATO Allies to counter Russia's 
malign influence through our Centers of Excellence. I will work with 
the government and civil society to raise awareness of this issue and 
to increase institutional and public resiliency to malign influence 
campaigns. I will also encourage our Norwegian counterparts to share 
their expertise with our other partners and focus on continuing to 
build their own resilience and the resilience of others to such 
threats.



                               __________


      Responses to Additional Questions for the Record Submitted 
            to Carlos Trujillo by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. Human rights and democracy are two areas that are extremely 
important to me. One area of human rights work I have focused on is 
combatting human trafficking. As an elected representative in the state 
of Florida, in 2015, I sponsored an appropriations act that provided 
funding for the creation of 20 to 30 beds for child victims of human 
trafficking. The act was passed and signed into law during the 2015 
Florida Legislative Session. The act created additional separate 
housing for child victims of human trafficking.

    Question 2.  What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        Embassy are fostering an environment that's diverse and 
        inclusive?

    Answer. I am committed to promoting diversity and inclusion, and to 
upholding equal employment opportunity principles. If confirmed, I will 
remain committed to fostering a diverse and inclusive team in the U.S. 
Permanent Mission to the Organization of American States, and make this 
a top priority throughout my tenure. I firmly believe, as articulated 
by the Secretary of State and the Deputy Secretary of State, that U.S. 
diplomacy is greatly served and strengthened by a Department of State 
that reflects America and the richness in diversity that characterizes 
our great country. If confirmed, I look forward to maintaining a robust 
and collaborative dialogue with Congress in advancing this important 
shared objective.

    Question 3.  Have there have been any material changes to your 
financial assets, income, or any other information requested by the OGE 
financial disclosure form since the date you signed it? If so, please 
list and explain below, and whether you have raised them with OGE.

    Answer. There have been no material changes that would bear on my 
ethics obligations. I am committed to ensuring that my official actions 
will not give rise to a conflict of interest and will remain vigilant 
with regards to my ethics obligations.

    Question 4. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 5. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.
OAS Revitalization and Reform Act of 2013

    Question 6.  What is your assessment of the State Department's 
efforts to advance the policy directives included in the OAS 
Revitalization and Reform Act of 2013 (P.L. 113-41), specifically the 
provisions on results-based budgeting, the streamlining of mandates, 
transparent and merit-based personnel practices, and the revision of 
member quotas related to the organization's budget?

   If confirmed, do you commit to taking all necessary steps to 
        advance the policy directives in P.L. 113-41?
   If confirmed, do you commit to providing the Senate Foreign 
        Relations Committee with routine briefings on your efforts to 
        advance the policy directives in P.L. 113-41?

    Answer. I believe it is critical that we continue to press for OAS 
reform consistent with the ``OAS Revitalization and Reform Act of 
2013'' (P.L. 113-41) to build a stronger, more effective institution 
and help it reach its full potential.
    I understand the U.S. Permanent Mission has made significant 
strides, working with OAS leadership and other member states, to put 
the OAS on a firmer financial footing and restore its critical 
leadership role in the region. It remains vital, however, that we 
continue to press for additional steps to build on the progress 
achieved to date and increase the transparency, efficiency, and 
effectiveness of the organization. If confirmed, I will remain 
committed to this critical objective.
    Our focus should be to strengthen the core competencies of the 
institution as outlined in the ``OAS Revitalization and Reform Act'' 
(P.L. 11341), and also focus on further assessing and pressing on ways 
to strengthen budgetary and management reforms, reducing mandates, and 
bolster oversight, transparency and accountability mechanisms on the 
allocation and use of scarce resources to ensure they are utilized 
effectively in support the organization's most vital functions.
    It is also important this be a shared priority for each and every 
member state as it is in our core collective interest to ensure that a 
strong OAS remains focused on its core pillars and the purposes and 
principles upon which it was founded and clear of purpose. We must all 
consider the value each of our countries gets out of the organization 
and share the burden of ensuring the OAS' long-term financial 
sustainability in a way the reflects that.
    OAS member states passed a resolution at the 2017 General Assembly 
in Canc#n, Mexico, mandating a reduction of the U.S. contribution to 
below 50 percent. If confirmed, I will work for a more equitable 
distribution of quota assessments among member states to ensure that 
each of them has the necessary fiscal buy-in to guarantee the 
organization's financial sustainability.
    If confirmed, I will also remain committed to briefing this 
committee on our efforts and also maintaining collaborative engagement 
to advance this important and shared objective.

    Question 7.  In your discussion with Senator Ben Cardin, Ranking 
Member of the Senate Foreign Relations Committee, you spoke in support 
of taking steps to expand opportunities for engagement by Members of 
Congress at the OAS. If confirmed, do you commit to taking steps to 
strengthen the role of elected national legislators at the OAS?

   If confirmed, do you commit to providing the Senate Foreign 
        Relations Committee with updates on your efforts to strengthen 
        the role of elected national legislators at the OAS?

    Answer. If confirmed, I will look forward to working with the 
Senate Foreign Relations Committee in advancing this important 
objective. I believe the OAS can play an important role in bolstering 
dialogue and cooperation between the region's legislatures. This kind 
of initiative can have enormous value, in particular in helping 
strengthen democratic institutions and advancing our region's shared 
commitment to democracy and to the separation of powers, consistent 
with the principles articulated in the Inter-American Democratic 
Charter.
    Strengthening engagement between the U.S. Congress and regional 
counterparts can also greatly enhance efforts to work jointly in 
promoting and advancing shared policy goals, values and objectives to 
the benefit of the citizens of the Americas. I understand the OAS 
Secretariat for Strengthening Democracy is working to enhance the role 
of the OAS in this regard and has organized various gatherings of 
regional legislators. I welcome the opportunity to work collaboratively 
with this committee on ways to build on the OAS' achievements to date 
and bolster its efforts in this important area.

    Question 8.  What steps will you take to ensure the continued 
independence of the OAS Inter-American Commission on Human Rights 
(IACHR)?

   What steps will you take to ensure that the OAS IACHR has 
        sufficient resources to successfully advance its mission to 
        defend human rights in the hemisphere, specifically at a point 
        in time when the Trump administration is proposing drastic cuts 
        to the U.S. foreign assistance budget?
   The OAS IACHR has taken incipient steps to review and investigate 
        the July 2012 death of Cuban political activist Oswaldo Paya. 
        If confirmed, do you commit to working with the IACHR to ensure 
        a thorough investigation of Mr. Paya's death?
   In the aftermath of the September 2014 forced disappearance of 43 
        students in Iguala in the State of Guerrero in Mexico, the OAS 
        IACHR established an Independent Group of International Experts 
        (GIEI) to review the official investigation of the incident. 
        What is your assessment of the GIEI's work?
   Following completion of the GIEI's mandate, the Government of 
        Mexico agreed to establish a follow on mechanism with the OAS-
        IACHR to implement the GIEI's recommendations. If confirmed, do 
        you commit to working with the OAS Secretariat, the IACHR, and 
        the Government of Mexico to ensure successful implementation of 
        the GIEI's recommendations for the investigation into the 
        September 2014 incident in Iguala, Mexico?
   If confirmed, do you commit to providing the Senate Foreign 
        Relations Committee with updates on your efforts to ensure the 
        implementation of the GIEI and the success of the OAS follow on 
        mechanism?

    Answer. The United States has great respect for the role the Inter-
American Commission on Human Rights (IACHR) plays in addressing human 
rights in the hemisphere, including delicate human rights issues in the 
United States, and is its biggest supporter, both politically and 
financially. The Commission and the Inter-American Court of Human 
Rights look at some of the most delicate human rights issues in 
countries such as Cuba, Venezuela, and Ecuador. In some countries, 
especially those with broken legal systems, it is the only avenue to 
address human rights violations. As an autonomous organ designed to 
promote and protect human rights in the Americas, the IACHR is a useful 
tool for holding states like Venezuela and Cuba accountable. Through 
our political and financial support, the United States supports the 
independent work of the Commission without infringing upon its direct 
engagement with a member state.
    Recognizing the vital role the Commission and Court play in 
protecting and promoting human rights in the hemisphere and the need 
for both organs to have full independence in exercising their 
authorities, OAS member states decided at the 2017 General Assembly to 
increase the regular budgets of both institutions by a third over the 
next three years (2018-2020). If confirmed, I will continue to advocate 
for member states to commit sufficient resources to the Commission 
through the OAS Regular Fund as well as contribute voluntary funds so 
that the IACHR has a diverse and sustainable funding base.
    I believe it is imperative that human rights defenders the world 
over, including the IACHR, remain engaged in reviewing and 
investigating the death of Cuban political dissident Oswaldo Paya, and 
that the Cuban Government be held accountable and responsible for its 
egregious human rights violations and systematic repression of the 
fundamental rights of the people of Cuba. If confirmed, I will remain 
committed to advocating for and defending the right of the Cuban people 
to democracy and respect for human rights, consistent with the 
principles articulated in the Inter-American Democratic Charter, and 
ensuring that the IACHR and the inter-American human rights system 
remain fully engaged in addressing the gross and consistent violation 
of human rights of the people of Cuba under the current dictatorship.
    The September 2014 disappearance of the students in Iguala is a 
tragedy, and the United States actively encourages Mexican authorities 
to continue to thoroughly investigate and prosecute those responsible.
    I understand the Department has met with some of the Iguala 
victims' families as well as with all of the members of the 
Interdisciplinary Group of Independent Experts who worked under the 
auspices of the Inter-American Commission on Human Rights to assist the 
Government of Mexico with its investigation.
    I also understand the Department is actively following the 
implementation of the follow-up mechanism, agreed to by the Mexican 
Government, the Inter-American Commission on Human Rights, and families 
of the victims. This mechanism, funded by Mexico, is intended to follow 
up on the experts' recommendations and ensuring protective measures for 
the victims and their families will remain in place. The Government of 
Mexico recently agreed to a one-year extension of the follow-up 
mechanism and the next visit of the mechanism is expected to take place 
February 2018. Mexico's Attorney General's Office remains in regular 
touch with the victims' families. Additionally, Mexican President Pena 
Nieto signed a new law on forced disappearances November 16.
    If confirmed, I look forward to maintaining an open dialogue with 
the Senate Foreign Relations Committee regarding the implementation of 
the GIEI and the OAS follow-on mechanism.
    Also, if confirmed, I will remain firmly committed to work with 
like-minded member states to push back against those states that seek 
to undermine the IACHR and work to preserve its critical role in the 
promotion and defense of human rights in our region.
Honduras
    Question 9.  What is your assessment of the OAS Support Mission 
Against Corruption and Impunity in Honduras (MACCIH)?

   If confirmed, do you commit to working with the OAS Secretariat and 
        the Government of Honduras to ensure that the MACCIH remains 
        independent in its work and has all of the necessary resources 
        needed to combat corruption and impunity in Honduras?
   If confirmed, do you commit to providing the Senate Foreign 
        Relations Committee with updates on your efforts to ensure the 
        success of the MACCIH?
   The OAS currently has an election observation mission (EOM) in 
        Honduras. What is your assessment of the OAS EOM in Honduras?
   The OAS EOM in Honduras has expressed concerns about delays in the 
        tabulation process for the Honduran presidential election. Do 
        you agree with these concerns?

    Answer. The OAS Mission Against Corruption and Impunity in Honduras 
(MACCIH) represents a wide-ranging approach to reforming Honduras' 
anti-corruption institutions, from the Prosecutors' Offices to customs 
to electoral financing, and aims to drive broad reforms to the Honduran 
judicial system. MACCIH's most notable success to date is helping draft 
and pass electoral finance reform legislation through the Honduran 
Congress in time to impact the 2017 presidential elections. The United 
States has contributed $8 million to establish a secure foundation for 
advancing the work of MACCIH. The mission will serve an important role 
in a comprehensive, long-term effort to tackle corruption networks and 
improve the rule of law in Honduras.
    It is imperative that we continue to urge progress on anti-
corruption efforts with the Honduran Government in collaboration with 
its partners and other OAS member and observer states, to ensure MACCIH 
has the resources and independence necessary to achieve its mission.
    If confirmed, I will work closely with the OAS to ensure MACCIH has 
the capacity and support to achieve its objectives and is implemented 
effectively and I will keep members of Congress apprised of our 
efforts.
    OAS electoral observation missions (EOMS) fulfill a critical 
function in our efforts to strengthen democratic institutions in the 
hemisphere. OAS EOMs enjoy a longstanding reputation for impartiality 
and technical competence, respected worldwide for stringent standards 
in accordance with the UN ``Principles for International Election 
Observation.'' It is imperative that all stakeholders in the Honduran 
elections cooperate fully with international observers--including the 
Organization of American States and the European Union--and that both 
the OAS and EU be allowed to carry out their critical role in ensuring 
an open and transparent process that enables public confidence and 
trust in the results of these elections.

    Question 10.  The OAS maintains a Mission to Support the Peace 
Process (MAPP) in Colombia that supports the implementation of 
Colombia's historic 2016 peace accord. If confirmed, do you commit to 
working to ensure that the MAPP has all of the necessary resources that 
it needs to help advance the consolidation of peace in Colombia?

   If confirmed, do you commit to providing the Senate Foreign 
        Relations Committee with updates on your efforts to support the 
        work of the MAPP?

    Answer. Since 2006, the United States has committed over $10 
million in contributions to the MAPP. The work of the OAS in Colombia 
remains vitally important given that the peace process is now in its 
implementation stage, with a support role being played by a UN Special 
Political Mission. Funding assistance--including through the OAS--will 
help Colombia secure post-conflict areas, address the needs of conflict 
victims, and promote licit rural economic opportunity to address the 
conflict's underlying drivers and build on the success of our prior 
assistance. Understanding that financing for the MAPP comes primarily 
from voluntary contributions, if confirmed, I will work to advocate for 
the necessary political and financial support MAPP requires from the 
international community in order to enable it to continue its critical 
work and I will keep Congress apprised of my efforts.
Venezuela
    Question 11.  While OAS Secretary General Luis Almagro has made 
tremendous efforts to address Venezuela's current political, economic, 
and humanitarian crisis, OAS member states have not been able to 
achieve consensus about the current tragedy in Venezuela. If confirmed, 
what specific steps will you take to forge greater hemispheric 
consensus regarding the situation in Venezuela?

   If confirmed, what specific steps would you take to advance a 
        political resolution of the current crisis in Venezuela?
   If confirmed, what specific steps would you take to address the 
        current economic crisis in Venezuela?
   If confirmed, what specific steps would you take to address the 
        current humanitarian crisis in Venezuela?

    Answer. With strong leadership from Secretary General Luis Almagro 
and a majority of like-minded member states, including the United 
States, the OAS has played a crucial role over the last 18 months in 
drawing increased international attention to the dire situation in 
Venezuela. After a series of high-profile Permanent Council sessions 
and declarations, Resolution 1078 of April 3 established that a rupture 
in Venezuela's democratic order had occurred, and set the stage for the 
region's foreign ministers to address the crisis.
    Although the OAS General Assembly in Cancun was unable to approve a 
resolution on Venezuela, the 20 votes in favor of action to address the 
crisis represented a significant statement from leaders representing 
over 90 percent of the population of our region. Since then, 
governments in the Lima Group built on the OAS' work to ramp up 
international pressure still further.
    Based upon the regional consensus originally developed within the 
OAS, the sanctions we and other partners have imposed on individuals 
and entities linked to the Maduro regime's repression and corruption 
have garnered strong support. It is critical that we continue to speak 
as a region--including through the OAS--regarding our concerns about 
the political, economic, and humanitarian crisis in Venezuela and 
maintain pressure on the Maduro regime for the restoration of democracy 
in Venezuela.
    If confirmed, I will continue to carry out our concerted efforts to 
stand up for democracy and human rights in our region, guided by the 
Inter-American Democratic Charter, that are central to the work of the 
OAS in securing for our citizens a hemisphere of liberty and 
prosperity. Our shared goal continues to be to promote the return to 
full respect for the rule of law and the full respect for political 
expression and participation in Venezuela, consistent with the terms of 
the Inter-American Democratic Charter, to which Venezuela remains a 
signatory.
    As President Trump has stated, a ``stable and peaceful Venezuela is 
in the best interest of the entire hemisphere, and America stands with 
all the people in our great hemisphere yearning to be free.'' The 
United States wants to see a peaceful, prosperous Venezuela that 
respects the rule of law and basic human rights like the freedoms of 
political expression and public assembly. If confirmed, I will work to 
ensure that the OAS continues to have a vital role to play in helping 
Venezuela find a path back to peace and prosperity.
Migration
    Question 12.  As a Florida state legislator, you introduced 
legislation that would have increased criminal penalties for 
unauthorized immigrants in the U.S. What was the intent of such 
legislation?

    Answer. Thank you for the opportunity to clarify the intent of this 
legislation. The intent of the bill was to codify certain sections of 
the federal illegal reentry statute into state law. Mainly, to increase 
criminal penalties for individuals who had previously exhausted all due 
process, were forcefully removed from the United States, illegally 
reenter and are convicted of a new felony.

    Question 13.  The Western Hemisphere current faces myriad 
migration-related challenges in the hemisphere--including migrants and 
refugees fleeing violence in Central America, the growing refugee 
crisis emanating from Venezuela, and the challenges of statelessness 
facing individuals of Haitian ancestry in the Dominican Republic. If 
confirmed, will you advocate that OAS member states impose criminal 
penalties on individuals engaged in irregular migration in the region 
or will you work to ensure sufficient humanitarian protections for 
vulnerable migrants in accordance with international standards?

    Answer. The OAS serves as a useful forum for generating attention 
on high-level cross-border and extra-continental migration issues which 
adversely impact the United States. If confirmed, I will continue to 
seek constructive engagement with OAS member states to address regional 
migration issues as well as counter unhelpful interventions by some OAS 
member states that view migration as way to divide the United States 
from the rest of the region.



                               __________


      Responses to Additional Questions for the Record Submitted 
                toCarlos Trujillo by Senator Marco Rubio

    Question . Peru will host the 8th Summit of the Americas in 2018. 
If confirmed as U.S. Ambassador to the Organization of American States, 
you will play an important role in the coordination of the Summit. As 
Cuba doesn't meet the norms of the OAS Charter, do you believe that 
Cuba should participate at the Summit?

    Answer. By precedent, the host of the Summit of the Americas has 
exercised its prerogative to invite countries at its own discretion. In 
2015, Panama invited Cuba to participate, for the first time, in the 
Summit of the Americas held in Panama City.
    Peru, as host of the next Summit, has indicated it plans to invite 
all governments of the Americas to the 2018 Summit in Lima, Peru, to be 
held April 13-14. It has chosen ``Democratic Governance against 
Corruption'' as the theme for the Summit. Cuba has not made any public 
statements as to whether or not it will participate in the Summit. If 
confirmed, I will express strong U.S. concern over Cuba's invitation 
with the Government of Peru.
    I believe the Summit can allow the United States and its like-
minded partners to call on Cuba to implement reforms consistent with 
the highest values of our hemisphere, such as our support for democracy 
and respect for human rights. As such, if confirmed, I will work with 
the White House and the State Department to ensure that, if Cuba is 
invited and decides to attend, it is held to the same standards as all 
participants in the Summit, and its failures in these areas are raised.



                               __________


      Responses to Additional Questions for the Record Submitted 
             to Lee McClenny by Senator Benjamin L. Cardin

    Question 1.  What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. As Charge d'Affaires of our Embassy in Caracas since July 
2014, I led our government's efforts on the ground to defend human 
rights and democracy from the depredations of the corrupt and 
increasingly dictatorial Maduro regime. Using USAID and State 
Department democracy and governance and public diplomacy programs, we 
supported Venezuelan civil society and NGOs focused on civil rights, 
human rights, and press freedom through training, networking, and 
professionalization activities. We supported more than 20 human rights 
organizations. Embassy Caracas publicly and clearly backed civil 
society organizations working for equality of opportunity for 
marginalized Venezuelans, including for persons with disabilities and 
the LGBTI community.
    We have focused especially on fair elections to ensure Venezuelans 
have a voice in their government. We provided support to NGOs 
conducting election observation activities, and Embassy personnel 
monitored nationwide elections for the National Assembly and 
governorships to assess the degree of freeness and fairness of the 
registration, tabulation, and actual voting procedures. We have 
coordinated with the international community to speak with a unified 
voice on the importance of free and fair elections and support to 
democratic actors.
    We have also supported and engaged directly with both leadership 
and the rank-and-file of Venezuela's democratic opposition parties, as 
well as the opposition umbrella organization, MUD. This activity 
intensified as MUD officials increasingly faced arbitrary arrest and 
detention of its members. We have repeatedly, and publicly, 
demonstrated our support for the democratically- and legitimately-
elected National Assembly, in the face of Maduro regime efforts to 
undercut its constitutional role, authorities, and prerogatives. 
Simultaneously, we have strictly rejected overtures by, and refused 
contact with, the illegitimate and unconstitutional Constituent 
Assembly, created by the Maduro regime solely to supplant the duly 
elected, opposition-controlled National Assembly.
    Many of these efforts have amounted, unfortunately, to a rear-guard 
action. In the face of the increasingly flagrant efforts of the Maduro 
regime to undermine the few remaining Venezuelan institutions not 
compliant to its wishes, Embassy Caracas' strong, public stance across 
the spectrum of human rights and democracy and governance issues marked 
it as a beacon for many Venezuelans. Numerous of my Venezuelan contacts 
assessed that the U.S. mission's leadership helped create critically 
important breathing room, and provided a vital measure of encouragement 
and inspiration for those many Venezuelans fighting to defend and 
preserve democracy in their nation.

    Question 2. What are the most pressing human rights concerns in 
Paraguay today? What are the most important steps you expect to take--
if confirmed--to advance human rights and democracy in Paraguay? What 
do you hope to accomplish through these actions?

    Answer. Corruption is the primary human rights issue in Paraguay 
and a clear drag on both social and economic development. If confirmed, 
I will strengthen the mandate of the Embassy's newly established Anti-
Corruption and Transparency Working Group, which integrates anti-
corruption, anti-impunity, and transparency efforts into nearly every 
Mission activity from public diplomacy to our interactions with the 
Government, political contacts, and the private sector. We must help 
Paraguay strengthen its public institutions and improve governance as a 
critical first step in reducing corruption and impunity.
    Child labor is pervasive, particularly for domestic labor and in 
the agriculture sector. The criadazgo system of using children from 
impoverished families to work as domestic laborers in richer households 
is prevalent and culturally accepted. No law now exists explicitly 
outlawing the practice, though a draft law has circulated 
unsuccessfully for some time. Only a strong legal framework coupled 
with government enforcement will change the situation, albeit slowly. 
If confirmed, I intend to maintain pressure on the Paraguayan 
legislature to make needed legal modifications, and I will urge the 
executive branch to enforce those laws and provide social support for 
victims. In the agricultural sector, the U.S. Embassy and Department of 
Labor have a dynamic working relationship with the Paraguayan Ministry 
of Labor to eliminate child- and forced-labor programs in the 
agricultural sector, including a $6 million project to prevent child 
labor in the sugar industry. If confirmed, I will reinforce and seek to 
augment these efforts. Our priority must be to help Paraguay protect 
its most valuable national asset--its youth.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Paraguay in 
advancing human rights, civil society and democracy in general?

    Answer. Lack of enforcement of the rule of law, facilitated by a 
climate of impunity and a dysfunctional and often corrupt judiciary, is 
the principal obstacle for addressing nearly every human rights issue 
in Paraguay, including corruption and child labor. Critical to holding 
government authorities accountable for enforcing the law fairly and 
justly is a capable and engaged civil society, which is still nascent. 
Paraguay has not had a strong tradition of effectively incorporating 
civil society voices, opinions, and ideas into public policy and 
governance discussions. As such, one of the biggest challenges is 
empowering civil society organizations to participate in policy-making 
and implementation while encouraging government agencies to recognize 
them as a resource. The U.S. Government has an important role to play 
in training, supporting, and highlighting the important dividends that 
a strong civil society, as we have in the United States, could provide 
to the Paraguayan public.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Paraguay?

    Answer. If confirmed, I am committed to sustaining engagement with 
a broad spectrum of society among the Paraguayan public, including 
human rights activists, civil society, religious groups, and the 
organizations that represent them.

    Question 5. Will you and your embassy team actively engage with 
Paraguay to address cases of key political prisoners or persons 
otherwise unjustly targeted by Paraguay?

    Answer. While there are no reports of political prisoners or 
detainees in Paraguay, my Embassy team and I will actively engage with 
the Government of Paraguay should such issues arise. The Embassy team 
is closely following reports that public employees have filed 
complaints with a non-government public employee association for being 
harassed, dismissed, or transferred for their stance on the upcoming 
presidential primary. We strongly support the principle of democratic 
transition of power through free, fair, and credible elections. If 
confirmed, I would seek to ensure that all relevant stakeholders in 
this electoral cycle are able to play a supportive and collaborative 
role on the ground.

    Question 6. If confirmed, what steps will you take to pro-actively 
support the Leahy Law and similar efforts, and ensure that provisions 
of U.S. security assistance and security cooperation activities 
reinforce human rights?

    Answer. Vetting of potential recipients of U.S. security assistance 
is vital in maintaining integrity of our assistance programs. Embassy 
Asuncion already has in place a robust and active Leahy vetting 
program, processing more than 900 requests per year. If confirmed, I 
will continue Post's prioritization of Leahy vetting and seek ways to 
further strengthen the program. If there is credible information 
implicating security force units or members in gross violations of 
human rights, we will take the necessary steps in accordance with the 
law and Department policy, including working to ensure the responsible 
parties do not participate in U.S.-funded training, and will assist 
their respective governments in taking effective measures to bring them 
to justice.

    Question 7. Will you engage with Paraguay on matters of human 
rights, civil rights and governance as part of your bilateral mission?

    Answer. If confirmed, I will engage with the Paraguayan authorities 
on matters of human rights, civil rights, and governance as part of our 
bilateral mission.

    Question 8. What will you do to promote, mentor and support your 
staff that come from diverse backgrounds and underrepresented groups in 
the Foreign Service?

   What steps will you take to ensure each of the supervisors at the 
        Embassy is fostering an environment that is diverse and 
        inclusive?

    Answer. I am committed to equal employment opportunity principles. 
If confirmed, I will foster a diverse and inclusive team in the U.S. 
Mission in Paraguay. If confirmed, I will ensure the U.S. Mission in 
Paraguay continually strives to promote equal opportunity for our 
officers, including women and those from historically marginalized 
groups. In keeping with Secretary Tillerson's strong emphasis on 
diversity, I will ensure all supervisors have access to and avail 
themselves of opportunities to receive regular formal training and 
regular guidance on EEO principles, diversity, and inclusion to 
sensitize them to these important issues and ensure they are helping to 
foster a work environment that is diverse and inclusive.

    Question 9. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 10.  Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 11. Do you or do any members of your immediate family have 
any financial interests in Paraguay?

    Answer. No.

    Question 12. If confirmed, do you commit to taking all necessary 
steps to ensure that justice is upheld for the June 2015 murder of U.S. 
citizen Alex Villamayor?

    Answer. Since 2015, the U.S. Embassy in Asuncion has repeatedly 
urged the Government of Paraguay to do everything in its power to 
guarantee an efficient and transparent judicial process, consistent 
with Paraguay's laws and procedures, and I will continue these efforts.

    Question 13. If confirmed, do you commit to offering all necessary 
technical assistance to the relevant Paraguayan authorities to ensure 
that there has been a comprehensive investigation into Alex 
Villamayor's death and that there is an expeditious trial?

    Answer. The United States and Paraguay enjoy strong cooperation in 
law enforcement and security, and in the past the U.S. Government has 
provided technical assistance and training for judges, prosecutors, and 
police. However, the judicial system continues to be highly 
politicized, and despite improving levels of transparency, corruption 
and impunity persist. If confirmed, I will engage with the Paraguayan 
authorities to offer all relevant technical assistance that might help 
achieve a thorough, impartial investigation and fair trial in this 
case.

    Question 14. If confirmed, do you commit to meet with the Alex 
Villamayor's family members?

    Answer. Yes.



                               __________





                              NOMINATIONS

                              ----------                              


                       TUESDAY, DECEMBER 19, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:05 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.
    Present: Senators Flake, Isakson, Shaheen, Kaine, and 
Booker.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Committee will come to order.
    Today, the committee will consider the nomination of two 
experienced career Foreign Service officers to be U.S. 
Ambassadors to Rwanda and Gabon.
    Economic growth in Rwanda has averaged 7.6 percent per year 
over the past decade, which we will get after we pass this tax 
bill. Right? [Laughter.]
    Senator Flake. No, okay.
    And it has gone from ranking 56th place to 41st place in 
the World Bank's 2018 Doing Business report.
    Yet, a number of constraints on foreign investment in 
Rwanda persist. The donor aid remains a key source of funding 
for the country's development and economic growth initiatives, 
and concerns persist about the state of Rwanda's electoral 
process with the Trump administration recently criticizing 
irregularities with the country's presidential election last 
August, which saw President Paul Kagame, elected to his first 
term in 2003, handily win reelection here. Kagame was cleared 
to run for an additional term following a constitutional 
referendum that exempted him from presidential term limits.
    Now, in Gabon, declining oil prices have led to economic 
challenges for an economy dominated by oil. Despite Gabon's 
President Bongo working to diversify the economy, private 
sector firms still face challenges to impede investment in the 
country, which is thought to have significant deposits of iron, 
diamonds, and gold, among other minerals.
    Gabon is a key player in peacekeeping efforts in Central 
Africa and like Rwanda, has committed peacekeepers to a variety 
of missions. This is an issue that we have talked about in our 
office in terms of peacekeeping, and it is important in terms 
of these countries and their contributions.
    I thank each of you for your time, for sharing your 
expertise. I also want to thank the family members who are in 
attendance and those who are not who continue to make 
sacrifices to support the work that you do for your country.
    With that, let me turn it to Senator Booker for comments 
before we get to the witnesses.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Mr. Chairman, I am grateful for your 
opening remarks and your unbounded optimism about the United 
States of America.
    I am just going to submit my statement for the record.
    I just really want to say thank you both. Reading your bios 
and knowing the strategic importance of places to which you are 
being nominated to represent the United States of America, you 
are great patriots that have served with incredible careers. I 
see a lot of people that look suspiciously like family members. 
I hope you will take some time to introduce us to your families 
who also make a tremendous sacrifice for their country and 
support you in your essential work on our behalf and, frankly, 
not just our behalf but on behalf of humanitarian issues, 
democratic issues, dealing with international diseases. It is 
tremendous the work that you all are doing. So thank you very 
much.
    Thank you, Mr. Chairman.
    [Senator Booker's prepared statement follows:]


               Prepared Statement of Senator Cory Booker

    Thank you for holding this hearing Mr. Chairman and thank you to 
our witnesses for being here today and for willing to take on these 
posts. We often don't thank our career foreign service officers for 
their service.
    But indeed, you are expected to spend years abroad, away from 
family and friends here in the States. As Senator Flake mentioned, you 
have served in many corners of the world--Iraq, Afghanistan, Ethiopia, 
Israel--working to promote U.S. priorities and relationships. You have 
also developed specialties in your fields, as expert negotiators and 
managers, which I know will be invaluable to the posts to which you 
will hopefully be deployed very soon.
    You are also going to strategically important countries, especially 
in the context of peacekeeping operations. Both Gabon and Rwanda 
contribute to U.N. and African led peacekeeping missions.
    We were reminded of the heavy price peacekeepers and their 
countries pay after last week's attack on U.N. peacekeepers in the 
Democratic Republic of Congo. Both countries will play important roles 
especially as the continent aims to raise sustainable African resources 
for peace keeping operations on the continent.
    Thank you again for your service. Thank you for being here. I look 
forward to your testimonies and to your response.


    Senator Flake. Thank you, Senator Booker.
    Senator Isakson, do you have anything to say before we get 
started?
    Senator Isakson. Have we had the testimony yet?
    Senator Flake. No.
    Senator Isakson. Let us hear from the witnesses.
    Senator Flake. Thank you.
    Our first nominee is Ambassador Vrooman who most recently 
served as Charge and Deputy of Chief of Mission in Ethiopia. 
Prior postings include New Delhi, Baghdad, Tel Aviv, Beirut, 
Djibouti, and U.S. Liaison Office in Somalia.
    Our second nominee is Joel Danies, who is currently the 
Associated Dean of the School of Professional and Area Studies 
at the Foreign Service's Institute. In addition to serving as 
Special Envoy for Haiti, his prior assignments include Kabul, 
Geneva, Paris, and Sanaa.
    With that, we recognize Mr. Vrooman.

    STATEMENT OF PETER HENDRICK VROOMAN, OF NEW YORK, TO BE 
  AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED 
          STATES OF AMERICA TO THE REPUBLIC OF RWANDA

    Mr. Vrooman. Mr. Chairman, Ranking Member Booker, members 
of the committee, Senator Isakson, it is an honor to appear 
today before you as the nominee as the next U.S. Ambassador to 
the Republic of Rwanda. I thank President Trump and Secretary 
Tillerson for the trust they have placed in me by nominating me 
for this position. If confirmed, I will work closely with this 
committee and other interested Members of Congress to advance 
U.S. interests in Rwanda.
    I would like to particularly recognize my wife Johnette, a 
former Peace Corps volunteer and photographer, and our 
children, Zarah and Hendrick, who are here. Without their love 
and strength and support, I would not be here.
    Senator Booker. Mr. Chairman, I think that is a foul. They 
really need to identify themselves.
    Senator Flake. Yes, raise your hand there. There is the 
family. Okay.
    Senator Booker. And who is the person charitably married to 
you, sir?
    Mr. Vrooman. I think she is parking at Union Station. 
[Laughter.]
    Senator Flake. I thank the family for being here.
    Mr. Vrooman. My mother Sally is also here from upstate New 
York. Her encouragement first propelled me into the field of 
foreign affairs, from my time as a Rotary International 
Foundation scholar and ambassador of good will in 1986 to an 
ambassadorial nominee here today.
    My brother Eric has traveled from Minnesota to be here, and 
my other brother Bruce is watching from New Hampshire. My 
mother-in-law, sisters-in-law, and brothers-in-law and our 
extended family are here joining me as well today. So we have a 
full house.
    If confirmed as Ambassador to Rwanda, my first priority 
will be to ensure the safety and security of U.S. citizens in 
Rwanda, whether they are representing our country as diplomats 
in our mission, whether they are representing our--working in 
NGOs or faith-based organizations, conducting business, 
traveling on vacation, or working in the Peace Corps.
    My four policy goals will be to, one, sustain our 
development partnership while reducing Rwanda's aid dependency; 
two, promoting U.S. exports and business ties; three, advancing 
rule of law and human rights in Rwanda; and four, encouraging 
Rwanda's continued role in peacekeeping.
    The United States has a strong partnership with Rwanda. The 
Rwandan people have crossed many milestones in their trajectory 
of recovery, reconciliation, and rebuilding since the 1994 
genocide. In the past 10 years, Rwanda lifted more than 1 
million of its 11 million people out of poverty and doubled per 
capita GDP in that same period. Since the year 2000, Rwanda has 
reduced its budgetary reliance on foreign assistance from 86 
percent to 35.
    Rwanda has worked hard to meet the basic needs of the 
population for potable water, roads, primary education, and 
health care. And, for example, Rwanda's focus on combating the 
HIV epidemic--I was at the PEPFAR conference just this week--
has resulted in a reduction of new HIV infections by more than 
50 percent. Maternal and under-5 mortality has also dropped by 
more than 50 percent in the last decade. These and other 
critical gains in the health sector have occurred with support 
from our foreign assistance, including PEPFAR, USAID's maternal 
and child health programs, and the work of Peace Corps 
volunteers in rural communities.
    Rwanda also encourages private sector investment. And we 
have been, over time, the largest investor in Rwanda, and U.S. 
citizens are its largest source of tourism outside the East 
Africa region. U.S. companies are bringing innovative ideas in 
water treatment, energy generation, aviation, logistics to 
Rwanda, creating jobs in both of our countries. If confirmed, I 
will promote a Rwanda that remains open to U.S. business, 
trade, and investment as it pursues continued economic growth.
    Respect for human rights and democratic practices remain 
areas of great importance to our bilateral relationship. They 
are critical for Rwanda's continued prosperity, regional 
leadership, and partnership with the United States.
    If confirmed, I will work with the Rwandan Government and 
civil society to encourage a Rwanda that adheres to the 
democratic ideals enshrined in its own constitution, and these 
include the rule of law, respect for fundamental human rights, 
pluralistic democracy, equitable power sharing, tolerance, and 
resolution of issues through dialogue.
    As noted, Senators, Rwanda is one of the most committed 
countries to international peacekeeping. It is the fifth 
largest contributor of troops, the second largest of police 
units to UN peacekeeping operations around the world. And 
Rwandan peacekeepers have served with distinction in many of 
the world's most complicated trouble spots from the Central 
African Republic to Haiti, South Sudan, and the Sudan. Rwanda 
championed the Kigali Principles on Protection of Civilians, a 
set of best practices for protecting civilians in times of 
armed conflict and during the deployment of peacekeeping 
operations. If confirmed, I will continue to encourage Rwanda 
to play a positive role in peacekeeping in Africa and beyond 
and within the African Union as President Kagame assumes the 
role of chairperson of the African Union for 1 year beginning 
in January 2018.
    Thank you again, Mr. Chairman, Ranking Member Booker, and 
members of the committee, Senator Isakson, for the opportunity 
and honor to appear before you today. I look forward to 
answering any questions that you may have.
    [Mr. Vrooman's prepared statement follows:]


                  Prepared Statement of Peter Vrooman

    Mr. Chairman, Ranking Member Booker, and members of the committee, 
it is an honor to appear before you today as the nominee to be the next 
United States Ambassador to the Republic of Rwanda. I thank President 
Trump and Secretary Tillerson for the trust they have placed in me by 
nominating me for this position. If confirmed, I will work closely with 
this committee and other interested Members of Congress to advance U.S. 
interests in Rwanda.
    I would like to recognize my wife, Johnette, and our children, 
Zarah and Hendrick, who are here today. Without their love, strength, 
and support, I would not be here. My mother, Sally, is here too, from 
upstate New York. Her encouragement first propelled me into the field 
of foreign affairs, from my time as a Rotary International Foundation 
``ambassador of goodwill'' in 1986 to a junior Foreign Service Officer 
in 1991 and an ambassadorial nominee today. My brother, Eric, has 
travelled from Minneapolis to be here, and my other brother, Bruce, is 
watching from New Hampshire.
    If confirmed, my first priority will be to ensure the safety and 
security of U.S. citizens in Rwanda, whether they are representing our 
country as diplomats, working in NGOs or faith-based organizations, 
conducting business, traveling on vacation, or serving in the Peace 
Corps. My goals will be to sustain our development partnership while 
reducing Rwanda's aid dependency, promote U.S. exports and business 
ties, advance the rule of law and human rights in Rwanda, and encourage 
Rwanda's continued role in peacekeeping.
    The United States has a strong partnership with Rwanda. The Rwandan 
people have crossed many milestones along the trajectory of recovery, 
reconciliation, and rebuilding since the horrific 1994 genocide. In the 
past ten years, Rwanda lifted more than one million of its 11 million 
citizens out of poverty and doubled per capita GDP in that same period. 
Since the year 2000, Rwanda has reduced its budgetary reliance on 
foreign assistance from 86 percent to 35 percent.
    Rwanda has worked hard to meet the basic needs of its population 
for potable water, roads, primary education, and health care. For 
example, Rwanda's focus on combatting the HIV/AIDS epidemic over the 
past decade has resulted in a reduction of new HIV infections by almost 
50 percent between 2006 and 2016. Maternal and under-five mortality 
have also both dropped by more than 50 percent. These and other 
critical gains in the health sector have occurred with support from our 
foreign assistance, including the U.S. President's Emergency Plan for 
AIDS Relief (PEPFAR), USAID's Maternal and Child Health programs, and 
the work of Peace Corps volunteers in rural communities.
    Rwanda encourages private sector investment. We have been the 
largest investor in Rwanda, and U.S. citizens are its largest source of 
tourism. U.S. companies are bringing innovative ideas in water 
treatment, energy generation, aviation, and logistics to Rwanda, 
creating jobs in both our countries. If confirmed, I will promote a 
Rwanda that remains open to U.S. business, trade, and investment as it 
pursues continued economic growth.
    Respect for human rights and democratic practices remain areas of 
great importance to our bilateral relationship. They are critical for 
Rwanda's continued prosperity, regional leadership, and partnership 
with the United States. If confirmed, I will work with the Rwandan 
Government and civil society to encourage a Rwanda that adheres to the 
democratic ideals enshrined in its constitution. These include the rule 
of law, respect for fundamental human rights, pluralistic democracy, 
equitable power sharing, tolerance, and resolution of issues through 
dialogue.
    Rwanda is one of the world's most committed countries to 
international peacekeeping operations - the fifth-largest contributor 
of troops in the world and the second-largest contributor of police to 
international peacekeeping missions. Rwandan peacekeepers have served 
with distinction in many of the world's most complicated and protracted 
conflicts, including the Central African Republic, Haiti, South Sudan, 
and Sudan. Rwanda championed the Kigali Principles on the Protection of 
Civilians, a set of best practices for protecting civilians during 
peacekeeping missions. If confirmed, I will encourage Rwanda to 
continue to play a positive role in peacekeeping in Africa and within 
the African Union, as President Kagame assumes the role of AU 
Chairperson for one year starting in January 2018.
    Thank you again, Mr. Chairman and members of the committee, for the 
opportunity and honor to appear before you today. I look forward to 
answering any questions that you may have.


    Senator Flake. Thank you.
    Mr. Danies?

    STATEMENT OF JOEL DANIES, OF MARYLAND, TO BE AMBASSADOR 
   EXTRAORDINARY AND PLENIPOTENTIARY OF THE UNITED STATES OF 
AMERICA TO THE GABONESE REPUBLIC, AND TO SERVE CONCURRENTLY AND 
WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR EXTRAORDINARY AND 
    PLENIPOTENTIARY OF THE UNITED STATES OF AMERICA TO THE 
          DEMOCRATIC REPUBLIC OF SAO TOME AND PRINCIPE

    Mr. Danies. Thank you, Chairman Flake, Ranking Member 
Booker, Senator Isakson. It is an honor to appear before you 
today.
    I am grateful to President Trump and to Secretary Tillerson 
for the confidence that they have placed in me as their nominee 
to be Ambassador to the Gabonese Republic and also the 
Democratic Republic of Sao Tome and Principe. If confirmed, I 
will be honored to work with you and other Members of Congress 
to protect and advance U.S. interests in both countries.
    Throughout my 30 years in the Foreign Service, I have 
focused on developing the skills required to promote U.S. 
interests globally and to effectively implement U.S. foreign 
policy objectives. I have worked to increase respect for human 
rights, identify U.S. trade opportunities, and promote 
adherence to the rule of law for the well-being and security of 
American and local citizens. If confirmed, I look forward to 
promoting our interests and democratic values in Gabon and Sao 
Tome and Principe and to encouraging both countries to 
contribute to a vibrant and prosperous region.
    I would not be where I am today without the enduring love 
and support of my family, and I am joined today by my wife 
Karen and my daughter Blair. Our son Judson is probably 
watching this from the West Coast, and some very close friends 
of mine have also joined us today.
    Gabon and Sao Tome and Principe have been relatively 
peaceful and stable since their independence. U.S. policy 
priorities are clear for both countries: protecting U.S. lives 
and interests, strengthening democratic institutions and 
improving governance, enhancing trade and economic 
opportunities, and ensuring peace, security, and stability.
    In Gabon, our priorities remain to encourage the process of 
democratization, increase good governance, and increase 
transparency. If confirmed, I will engage government leaders, 
opposition parties, and civil society to strengthen human 
rights and fundamental freedoms, and urge Gabon to stay on the 
path to democracy.
    Gabon's economy has been affected by falling oil prices 
leading to increased activity in the agriculture, fisheries, 
and timber sectors. These are areas in which U.S. knowledge and 
experience can contribute positively. If confirmed, I will 
tirelessly promote U.S. values and business interests, and I 
will continue to advocate on behalf of U.S. companies for a 
level playing in Gabon.
    Gabon is a country located on the strategic Gulf of Guinea. 
If confirmed, I will work closely with the government, as well 
as the Economic Community of Central African States, 
headquartered in Libreville, to promote regional security 
cooperation in this vital region by leveraging partnerships 
with U.S. forces.
    Gabon is also an important partner in the Congo Basin 
Forest Partnership, a multilateral public-private initiative 
for addressing regional environmental concerns, including 
deforestation and wildlife trafficking. If confirmed, I will 
continue to advance our shared work on sustained natural 
resource stewardship that denies revenues to transnational 
criminal organizations.
    The other country to which I am nominated to serve as 
Ambassador, the small island of Sao Tome and Principe, has a 
vibrant political scene but faces severe budgetary constraints 
that have hampered the dividends of democracy.
    U.S. national interests are served by Sao Tome's strategic 
location in the Gulf of Guinea and its respect for democracy. 
Sao Tome has been a reliable partner, hosting since 1992 a 
Voice of America relay station that covers much of Africa. It 
has also encouraged U.S. investment, and as a result, a U.S. 
company began oil exploration there in 2016.
    If confirmed, I will continue to work with Sao Tome to 
improve its port security through cooperation with the U.S. 
Coast Guard, as well as to strengthen regional security and 
improve bilateral trade links with the United States.
    Every country's greatest hope for the future is its youth. 
If confirmed, I will continue to work with the young people in 
both countries to promote peaceful dialogue, empower women, and 
foster entrepreneurship to further expand the private sectors 
in their nations.
    Chairman Flake, Ranking Member Booker, Senator Isakson, no 
goal will be more important to me than protecting the lives, 
interests, and welfare of Americans living and traveling in 
Gabon and Sao Tome. If confirmed, I look forward to leading and 
fostering the development of the dynamic embassy team, 
including the great local staff that we have in Gabon and Sao 
Tome and Principe.
    Thank you.
    [Mr. Danies's prepared statement follows:]


                   Prepared Statement of Joel Danies

    Chairman Flake, Ranking Member Booker, and members of the 
committee: It is an honor to appear before you today. I am grateful to 
President Trump and to Secretary Tillerson for the confidence that they 
have placed in me as their nominee to be Ambassador to the Gabonese 
Republic and also the Democratic Republic of Sao Tome and Principe. If 
confirmed, I will be honored to work with you and other Members of 
Congress to protect and advance U.S. interests in both countries.
    Throughout my 30 years in the Foreign Service I focused on 
developing the skills required to promote U.S. interests globally and 
to effectively implement U.S. foreign policy objectives. I have worked 
to increase respect for human rights, identify U.S. trade 
opportunities, and promote adherence to the rule of law for the well-
being and security of local and American citizens. If confirmed, I look 
forward to promoting our interests and democratic values in Gabon and 
Sao Tome and Principe and to encouraging both countries to contribute 
to a vibrant and prosperous region.
    I would not be where I am today without the enduring love and 
support of my family and I am joined today by:Gabon and Sao Tome and 
Principe have been relatively peaceful and stable since their 
independence. U.S. policy priorities are clear for both countries: (1) 
protecting U.S. lives and interests; (2) strengthening democratic 
institutions and improving governance; (3) enhancing trade and economic 
opportunities; and (4) ensuring peace, security, and stability.
    In Gabon, our priorities remain to encourage the process of 
democratization, increase good governance, and improve increased 
transparency. If confirmed, I will engage government leaders, 
opposition parties, and civil society to strengthen human rights and 
fundamental freedoms, and urge Gabon to stay on a path to democracy.
    Gabon's economy has been affected by falling oil prices leading to 
increased activity in the agriculture, fisheries, and timber sectors. 
These are areas in which U.S. knowledge and experience can contribute 
positively. If confirmed, I will tirelessly promote U.S. values and 
business interests, and I will continue to advocate on behalf of U.S. 
companies for a level playing field in Gabon.
    Gabon is a country located on the strategic Gulf of Guinea. If 
confirmed, I will work closely with the government as well as the 
Economic Community of Central African States (ECCAS) headquartered in 
Libreville, to promote regional security cooperation in this vital 
region by leveraging partnerships with U.S. forces. Gabon is an 
important partner in the Congo Basin Forest Partnership (CBFP), a 
multilateral public/private initiative for addressing regional 
concerns, including deforestation and wildlife trafficking. If 
confirmed, I will continue to advance our shared work on sustained 
natural resource stewardship that denies revenues to transnational 
criminal organizations.
    The other country to which I am nominated to serve as Ambassador, 
the small island state of Sao Tome and Principe (STP), has a vibrant 
political scene but faces severe budgetary constraints that have 
hampered the dividends of democracy.
    U.S. national interests are served by Sao Tome's strategic location 
in the Gulf of Guinea and its respect for democracy. Sao Tome has been 
a reliable partner, hosting since 1992 a Voice of America relay station 
that covers much of Africa. It has also encouraged U.S. investment and, 
as a result, a U.S. company began oil exploration there in 2016.
    If confirmed, I will continue to work with Sao Tome to improve its 
port security through cooperation with the U.S. Coast Guard, as well as 
to strengthen regional security and improve bilateral trade links with 
the United States.
    Every country's greatest hope for the future is its youth. If 
confirmed, I will continue to work with the young people in both 
countries to promote peaceful dialogue, empower women, and foster 
entrepreneurship to further expand the private sectors in their 
nations.
    Chairman Flake, Ranking Member Booker, and other members of the 
committee, no goal will be more important to me than protecting the 
lives, interests and welfare of Americans living and traveling in Gabon 
and Sao Tome. If confirmed, I look forward to leading and fostering the 
development of the dynamic embassy team, including the great local 
staff that we have in Gabon by serving as the next U.S. Ambassador to 
the Gabonese Republic and the Democratic Republic of Sao Tome and 
Principe. Thank you.


    Senator Flake. Thank you for your willingness to serve, 
both of you.
    Mr. Vrooman, with regard to Rwanda, what do you consider 
the greatest challenge you will face there? Does it involve 
their economy and U.S. participation or promotion of U.S. 
business there? Is it governance? What do you think the biggest 
challenge is?
    Mr. Vrooman. The biggest challenge that we will face or I 
will face, if confirmed as the Ambassador to Rwanda, is to 
promote the multiple pillars of our policy, and those include, 
as you have noted, promoting U.S. business, as well as our 
values, rule of law, and economic growth in Rwanda.
    And I think for Rwanda, the biggest challenge is the youth 
bulge that they face. Like many countries in Africa, they have 
high fertility rates. Their population of 12 million will 
double by the year 2035, and they are already the most densely 
populated country on the continent. So the efforts that U.S. 
foreign assistance can assist the Rwandans in in helping 
provide jobs for the youth who are unemployed will be critical 
for their security into the future and to create markets for 
U.S. exports and trade.
    Right now, we have a trade surplus. So that is less of a 
challenge, but cementing and making sure that our investments 
in Rwanda are protected--we have made significant investments 
in energy, aviation, and water treatment, but securing the fact 
that the American private sector interests will remain engaged 
will be a continuing challenge.
    And finally, on the values side, I think clearly from your 
comments and from my own, promoting some of the values that we 
uphold, rule of law, will require our technical assistance and 
some of our programmatic assistance to assist the Rwandans in 
making good on some of their own constitutional ideals and some 
of their own values.
    Senator Flake. Thank you.
    Mr. Danies, you mentioned our efforts to help with 
deforestation and wildlife preservation. They have some of the 
last remaining forest elephants I think there and lowland 
gorillas. We, working with U.S. Fish and Wildlife, there, what 
agencies of the U.S. Government are making an effort there?
    Mr. Danies. Thank you, Mr. Chairman.
    You are correct that the U.S. Fish and Wildlife Service, as 
well as USAID, are very involved with the Government of Gabon 
towards the protection of its wildlife and towards the 
protection of its environment. This is something that we in the 
United States care very much for, and this is something that I 
believe our embassy is very well placed to be able to provide 
the technical assistance and know-how that we have gathered in 
the United States to help the Government of Gabon, the people 
of Gabon protect this environment.
    Senator Flake. With regard to the Gulf of Guinea, there was 
concern a while ago, as we had some success with regard to 
piracy on the other coast of Africa around Somalia, that it 
might move to the Gulf of Guinea. Are there efforts and 
cooperation that is taking place to make sure that piracy does 
not gain a foothold there?
    Mr. Danies. Mr. Chairman, there is very much this sort of 
cooperation between the United States military forces who do 
multiple port calls, the U.S. Coast Guard in developing the 
capacity of the Gabonese maritime forces to be able to both 
protect the country, protect the region against piracy, against 
illegal fishing, against malevolent behavior that might take 
place in the Gulf of Guinea. So we are working very closely, 
and I can assure you, if confirmed, our embassy will be very 
engaged in that effort with the Government of Gabon.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. I am going to defer to the esteemed Senator 
Isakson.
    Senator Isakson. I did not know he was here. [Laughter.]
    Senator Isakson. Thank you, Cory.
    Thank you, both of you, for accepting the challenge of 
representing our country as Ambassador. You are both very 
fortunate to go the countries you are going to.
    Rwanda is one of my favorite places in the whole world. 
Everybody says you really have not been to Rwanda. Have you? I 
said I have been to Rwanda. And President Kagame is quite a 
character in and of himself and has done some exemplary things 
to bring about peace and justice in a time of terrible trouble. 
And I urge you when you get there--do you know what Umuganda 
Sunday is? Have you heard about Umuganda Sunday?
    I love to tell this story, Mr. Chairman and Senator Booker, 
because it is just such a telling story about reconciliation in 
Africa. When Kagame rose to leadership, one of the main things 
he knew he had to do was bring the people together. So they 
created this Umuganda Sunday where one Sunday out of every 
month, the president of the country declares a holiday. Nobody 
gets in their cars. Nobody goes anywhere, but the villages all 
get together and decide on a project they can do together to 
make their village better.
    Senator Corker and I in 2010 were there on Umuganda Sunday 
and helped dig a stump out of the middle of the road that went 
through the town and the village going down to the larger town 
and village. The hardest day's work I ever put in in my life, 
but the most fun I ever had to see people who were, in many 
cases, still angry at each other over a lot of the problems 
that had happened previously, working together to solve a 
problem for the neighborhood.
    And so I commend you, when you get there--you are dealing 
with a country that has really bent on reconciliation and 
improvement. It is growing tremendously. It is expanding 
tremendously. It is a great country, and Kagame has had a few 
stumps along the way, but he has done a fantastic job as 
president of that country and does a great job and a great 
friend of the United States of America.
    I have not been to Gabon, but I have helped them get some 
poultry. They are working very hard to expand their business 
and economic opportunity working with the University of Georgia 
on some techniques where they can make a cottage industry in 
Gabon by raising chickens by families raising them. They are 
anxious to expand their economic growth.
    Both those countries are tremendously important to the 
United States of America.
    And I want to close with this statement and then ask 
anything you want to say.
    Each of those countries, like every country in Africa, has 
a vote in the United Nations. Africa is the continent of the 
21st century for our country. The opportunity to expand 
American influence and friendship on the continent of Africa 
offers tremendous opportunity for our country, not only on 
votes in the UN, friends voting with friends, but also 
expanding opportunities in markets in those two countries for 
American value-added products at the beginning of the chain, 
like baby diapers and things of that nature, to expansion like 
the industry of poultry and things of that nature.
    So you are going to two great opportunities for our 
country. I know from reading both your resumes, you will both 
do a great job. And I look forward to hearing a good report 
when you come back. And I will first volunteer to say if you 
ever feel like the State Department is overlooking you--and I 
see the lady behind you is watching me when I say this--call 
me. I will go down there and vouch for you any time because you 
are going to the front line of where America's 21st century 
needs to be, and that is the continent of Africa.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Isakson.
    Senator Booker?
    Senator Booker. Thank you very much.
    Again, it is great that you are here. Your wife now has 
returned from parking. So if you would like to point her out. 
Yes. You missed your moment. [Laughter.]
    Senator Booker. I am really grateful again for the two of 
you.
    I want to jump right in. Obviously, these are such critical 
countries that you all are going to be representing the United 
States to, and there have been tremendous positive things 
happening. But I just want to hone in a little bit on some 
human rights issues and perhaps temper some of the praise for 
President Kagame as well.
    Right now--this is according to the Congressional Research 
Service--human rights advocates are asserting the laws and 
taboos prohibiting public acknowledgement of ethnic identity 
have been wielded as a tool to silence criticism of the 
government and that years of intimidation and interference have 
weakened the capacity of civil society to operate effectively. 
Over the years, various political opponents, critics, and 
journalists have been criminally prosecuted or have fled the 
country. Several dissidents have been violently attacked or 
killed outside the country in what critics portray as state-
backed assassination.
    There are a lot of these reports. Does this concern you? 
And tell me what we could be doing from the State Department to 
address some of these issues.
    Mr. Vrooman. Thank you very much, Senator Booker, for that 
question. It is an important one and a challenging one, given 
where they have come from, as Senator Isakson had mentioned, 
from the genocide onward, and building a community of 
reconciliation and overcoming the legacy of the genocide is an 
amazing challenge for an emerging democracy like Rwanda.
    I think that some of the key tools that we have to work 
with the Rwandans have been in the area of rule of law, which 
is fundamental to addressing any number of the challenges that 
you have just raised, whether it is with regard to civil 
society organizations and their freedom of operation, freedom 
of expression for the media, or for those very same opposition 
members, some of whom have been detained.
    So we have a number of ways in which we are working through 
USAID programs, one of which is through the University of 
Northern Ohio which has done training for judges and 
prosecutors and has worked on law school curriculum that help 
improve the delivery of justice in Rwanda.
    We have also as well an Access to Justice program that is 
unique with USAID and involving local partnerships and 
providing legal defense for people in Rwanda. That is critical.
    The University of Massachusetts is working with the Legal 
Aid Forum in Rwanda and looking at the quality and consistency 
of judicial decisions. And I found that in my experience before 
in Ethiopia that working on rule of law is one tool to helping 
a country move towards greater democratic pluralism and the 
rule of law in the country.
    So these programs are really critical, and I thank the 
Congress and the American people for supporting the efforts 
that we have put in, as well as the universities that have 
contributed to those efforts thus far.
    Senator Booker. So I appreciate that. And I will note that 
there were many universities you mentioned, none of which were 
in New Jersey.
    But I do have some concerns about the overall State 
Department's support of the kind of efforts that you are 
talking about. Last week, Secretary Tillerson held a town hall 
with employees of the State Department and USAID, which were 
both mentioned as important actors in the region, which they 
absolutely are, but when the Secretary announced the State 
Department's and USAID's missions, neither included democracy 
or democracy promotion.
    I have concerns about the health of civil society in Rwanda 
and in Gabon, which maybe you both can address, but maybe let 
us just sticking with Rwanda for a second--I think I respected 
George Washington as much as I did when I started studying 
African countries. It seems that President Kagame is intending 
to stay for an undetermined period of time. The constitution 
has been changed. Obviously, Rwanda has a tremendous record for 
promoting women, something frankly that maybe the United States 
can learn a thing or two from. But when Diane Rwigara, a Kagame 
critic and would-be first female independent presidential 
candidate, was denied registration as a candidate, that 
obviously raises concerns. She was also subject to an apparent 
smear campaign and was arrested for tax evasion shortly after 
the vote. I am really concerned about the continued focus on 
these issues in terms of democracy promotion and what this 
might mean for long-term stability in a nation that, as you 
said, is such an essential partner for us in regional 
stability.
    Mr. Vrooman. Indeed. And I think President Kagame--he was 
first elected in 2003. He has indicated on several occasions 
that he does not intend to remain president forever.
    Senator Booker. But I read the constitution. He could stay 
till 2035.
    Mr. Vrooman. Indeed. But, again, that is the outward limit 
of what is conceivably possible under the new constitutional 
amendments.
    But one of the opportunities that I see in the coming year, 
if confirmed, would be to work with the Rwandan parliament 
which, as you say, 60 percent are women in the parliament, but 
primarily those do not include many opposition parties. So it 
is not a very vibrant body in terms of diversity in terms of 
political parties.
    That said, they are revising their electoral law. And I 
think it is a hope of many Rwandans, both inside and outside 
Rwanda, that that electoral law will have in its reform better 
and more transparent criteria for becoming candidates, which is 
one of the criticisms that has been levied about the Rwandan 
democracy, and secondly, that there will be more safeguards put 
in place for the ballot counting mechanisms that are in place. 
So I would see it as a fundamental role as an ambassador to 
engage with Rwandan officials, whether they are in the 
legislative branch or the executive branch, to work with them 
at making improvements to their electoral law. And that is an 
area, as you know, where we have many U.S. agencies, both in 
and outside of government, that have expertise in that matter 
and there are many as well around the world.
    Senator Booker. And, then Mr. Danies--I know I am a little 
bit over my time, but if you will indulge me with answering the 
question about human rights concerns. Obviously, there have 
been election irregularities as well. Can you tell me about it, 
should you be confirmed, about some of your focus on civil 
society, democracy, and human rights?
    Mr. Danies. Thank you, Senator.
    I would say that that is probably the one area where the 
United States carries the greatest amount of strength and 
credibility in the way we have worked with organizations and 
groups, whether they are in the opposition or whether they are 
nongovernmental organizations or civil society organizations in 
countries to reinforce the benefits that they bring to a 
democratic process.
    I would say to you that, if confirmed, I could not imagine 
behaving any differently in Gabon in the sense of we have a 
country that has stated its determination to the democratic 
process, to openness, to transparency. I believe that we should 
hold them to their word and we should continue to encourage 
them to proceed down that path and to continue to strengthen 
those institutions.
    Senator Booker. [Foreign language spoken.]
    Senator Flake. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here today, for your service, and 
for your willingness to be nominated for these new very 
important posts. And I am delighted, Mr. Vrooman, that your 
brother Bruce is watching from New Hampshire. [Laughter.]
    Senator Shaheen. I want to ask you because we have all 
watched, especially given what happened in Rwanda in the 1990s, 
the genocide, and the gains that have been made there. The 
importance of women is one of the things that I have watched 
very closely. I think Rwanda has the highest percentage of 
women of any country in its national governing body, its 
parliament. But to what extent has that equality for women in 
elective office translated across the culture in the country, 
and to what extent do they, in reality, share power in the 
country?
    Mr. Vrooman. Thank you, Senator.
    I think there is still work to be done in the economic 
sphere, in the social sphere within Rwanda. As with many women 
around the world, gender-based violence is still an issue, as 
it has been in many of the places where I have served, whether 
in Ethiopia or India. And several of the ways that a U.S. 
Ambassador and their country team can work to bring attention 
to those issues and those inequalities is through nominating 
international women of courage that come to the State 
Department as nominees from our missions. And we have 
nominated--I have nominated women in those positions from India 
and Ethiopia. And I would think that there are people in Rwanda 
that would deserve similar recognition.
    One of the things concretely that we are doing through our 
programmatic assistance through PEPFAR, for example, 
recognizing that, for example, female sex workers have the 
highest prevalence of HIV--Ambassador Birx and the PEPFAR 
program have given us an opportunity to work on the DREAMS 
Program to help address both sexual violence and also the 
spread of HIV among adolescent girls. So the DREAMS Program has 
given us some additional resources to begin to target that 
community with additional assistance to help alleviate that 
challenge.
    But one of the things I believe in and I have believed in 
throughout my career is the importance of the girl child. I 
have one. So promoting those opportunities--and I think as an 
ambassador, one of the things we can do is to promote 
inclusiveness within our country teams to give opportunities to 
women, to the disabled, and to disabled women. That is one 
thing we have done in Ethiopia and which I would hope in a 
country like Rwanda that has suffered after the genocide with 
many people who face disabilities to give them opportunities, 
in addition to focusing on women as one of the key communities 
that does the work in the society and that will open 
opportunities for Rwanda as it goes forward and continues its 
economic development.
    Senator Shaheen. Thank you. It is also one of the reasons 
why diversity within our State Department is very important as 
well.
    I want to ask both of you about 2017 Trafficking in Persons 
Report, which listed both Rwanda and Gabon on its tier 2 watch 
list, meaning that they both have work to do in that area. And 
I wonder if both of you could tell me to what extent you think 
the leaders in the countries appreciate the importance of 
addressing this issue and what they might be doing to help make 
progress.
    Mr. Vrooman. Yes, indeed. And tier 2 watch lists is really 
a wakeup call. If the tier 2 was not, then the watch list is 
because that can lead to an automatic downgrade if action is 
not taken.
    I will say that in my briefings and consultations, I have 
learned about the action plan that was put in place in 2014 to 
begin to address more seriously the trafficking issues that 
Rwanda faces. And they have made some headway. All border 
forces in Rwanda have received training. There are 30,000 
community workers who have received training to help identify 
minors and others who might be victims of trafficking.
    We, through the J/TIP Office at the State Department, have 
offered programs to help provide some regional legal 
assistance--and this is done throughout the region--in helping 
them define a standalone anti-TIP law that is about to be 
unveiled. Now, law in itself is not sufficient because 
implementation and bringing to justice people who are judged 
guilty of promoting trafficking in persons needs to be done. So 
I believe our terrific embassy is going to be looking at and 
evaluating and reporting to what degree there is implementation 
and execution of that law and bringing people to justice.
    The other key aspects are we are working kind of uniquely 
with the International Organization of Migration both through 
J/TIP and USAID to form complementary programs to not just look 
at the law but the implementing regulations so that trafficking 
prevention, the three P's of anti-trafficking efforts, are 
really brought to bear and scaled throughout the country. And 
that is one thing that Rwanda is particularly good at is 
bringing programs to scale. So, if confirmed, when I go out 
there, I will be looking to see to what degree that the one-
stop shops for people who are seeking protection get it, to see 
what their needs are because offering protection to victims of 
trafficking is expensive and challenging, but incredibly 
important for their rehabilitation. So that is something that I 
would look forward to see expanding under the next action plan 
after this one concludes at the end of the year.
    Senator Shaheen. Great.
    Mr. Chairman, can I get an answer from Mr. Danies as well?
    Senator Flake. Sure.
    Mr. Danies. Senator, Gabon is very fortunate as being a 
middle income country which, therefore, means that it is 
attractive to a lot of the citizens and countries in its 
neighboring countries. As a result, it is very important for 
Gabon to have better control over the movement of people in and 
out of the country in order to be able to combat the illegal 
trafficking of people. It has a viable economy, which makes it 
attractive and therefore, of course, allows for criminal 
elements to use that as a way to be able to continue this 
horrid practice of trafficking in human beings.
    I believe that the United States again is very well placed 
to provide the sort of assistance that a country like Gabon 
could use in terms of helping develop its law enforcement 
capabilities, in helping it increase and provide the right sort 
of shelters, be able to identify criminal elements, and then 
create the institutions necessary to both investigate and then 
prosecute them as a way to stop this sort of practice.
    Senator Shaheen. I am over my time, but do I understand you 
to say then--yes or no--are they committed to addressing this 
issue?
    Mr. Danies. I apologize. Yes, they are very committed to 
it. This is one of the areas that we have worked very closely 
with the Government of Gabon.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair, and congratulations to 
each of you for your careers and for your nominations.
    I would actually like to ask both of you--this is almost 
more an Armed Services question than Foreign Relations. I sit 
on both, as does Senator Shaheen.
    The extent of U.S. military operations in Africa are 
something that I think a lot of Americans are surprised by when 
they wake up and they read about the death of American troops 
in combat in Niger, for example. That was surprising to many, 
not to those of us who serve on these committees. My son was 
deployed in Africa with the Marines in 2015, attached to 
AFRICOM.
    But talk a little bit about the state of the mil-to-mil 
relationship between the United States and each of the 
countries for which you have been nominated and what you could 
do in the position as Ambassador to promote cooperation, human 
rights training, upgrading of military standards, et cetera.
    Mr. Vrooman. Thank you very much, Senator.
    It is very important. I have worked in Ethiopia now and, if 
confirmed, in Rwanda, which are two of the leading African 
peacekeeping contributors. Both countries and Rwanda are 
beneficiaries of U.S. training for peacekeeping and have 
received substantial training monies from the U.S. Congress for 
support for the ACOTA training of peacekeepers. And in Rwanda's 
case, they have received IPPOS police keeping training from INL 
to support the police in their deployments of foreign police 
units overseas.
    What that means is that cumulatively that 20 percent of 
Rwanda's forces are deployed--their soldiers are deployed on 
peacekeeping missions. And all of those have gone or almost all 
of them have gone through some form of peacekeeping training, 
which includes respect for rule of law. And that is one reason 
I think that there has been--Rwandans have been valued in 
peacekeeping and been awarded, recognized in the Central 
African Republic for their work. They also have a zero 
tolerance policy for sexual exploitation and abuse, which is 
significant and I know is a consistent concern of the Congress 
and the administration in that regard. So those training 
programs have been important.
    Rwanda like Ethiopia is also a beneficiary of APREP. That 
is an acronym, so I will spell it that out. But it is the 
African Peacekeeping Rapid Response country, of which there are 
six in Africa. And that program has allowed them or will allow 
them, as it rolls out, to support their logistics, the 
deployment of medical evacuation units, and their support for 
aviation, which would facilitate, if we are able to deliver two 
Cessna aircraft--allow them to do evacuation of peacekeeping 
personnel in their deployments. So the APREP has given them a 
significant boost to the security assistance that we offer, and 
their IMET training is something that they willingly engage in 
and they permit Leahy vetting very transparently. And that is 
something that I would, if confirmed, pledge to continue.
    Senator Kaine. Thank you.
    Mr. Danies, if you could answer the same question about 
Gabon.
    Mr. Danies. Thank you, Senator Kaine.
    Both of us would tell you that the worse news an ambassador 
can ever receive is the death of an American citizen in their 
region, much less that of an American citizen who is the 
military, which means that it is critical to us that we 
continue to have these military-to-military cooperation 
arrangements but that we do so in a way that works to 
strengthen and bolster local forces in order to both be able to 
protect their citizens but also protect our citizens.
    In the case of Gabon, there is a very close partnership 
certainly related to maritime protection in the Gulf of Guinea, 
but also in helping to combat the encroachment of poachers into 
their region which can not only, of course, destroy the 
environment but also bring with them criminal elements which 
are dangerous to the country and eventually perhaps to the rest 
of the world. We are fortunate that the Government of Gabon--
Libreville hosts the Economic Community of Central African 
States, which continues to be a cooperative arrangement of 10 
countries in the region with which our U.S. military 
cooperates, both our naval forces and our military forces. So I 
believe that the relationship is a strong one and we will 
continue to keep it that way.
    Senator Kaine. I appreciate that.
    And, Mr. Chair, my observation from working on the defense 
authorizing bill every year is that the work we do to train 
foreign militaries is just like part of a fingernail of the 
Department of Defense budget, whether it is bringing officers 
for training here at the War College or in other venues in the 
United States, or whether it is on-the-ground training in those 
countries. But we would want them to want us to be their 
security partner of choice, and that training both in technical 
capacity but also around issues like respect for rule of law 
and human rights is incredibly valuable, and it also builds 
relationships that are important. The captain you train today 
could be the defense minister in 10 years or the leader of a 
country in 20 years.
    So this is a really important part of what we do on the 
defense side and it is about diplomacy and building 
relationships. These Ambassadors will have an important role to 
play in it, and I wish you both well. Thank you.
    Senator Flake. Thank you, Senator Kaine.
    We have got votes in just a few minutes, but I just have 
one quick question. Then I think Senator Booker has another.
    Mr. Vrooman, there is a long history of border incidents 
between Rwanda and Burundi. There have been issues of troops 
coming across. In what ways are we dealing with that issue, and 
is the government sufficiently cooperating with us and with the 
Government of Burundi as well?
    Mr. Vrooman. Yes, sir. In my consultations, I have looked 
at that history. In the past, the Child Soldier Protection 
Act--because of Rwanda's support for the M-23 militia in 
eastern Congo, they were listed under that in 2015 and 
similarly for recruiting Burundi soldiers in their refugee 
camps in 2015, later in 2016.
    But in the actual year of 2016 and 2017, following that 
listing, they are no longer, to the extent that I am aware, 
supporting proxies in those neighboring states. And that is a 
good thing. So I cannot attribute it to whether the listing had 
that effect, but the corrective actions that have been taken 
have been noted by our embassies in the region.
    Senator Flake. Thank you.
    Senator Booker?
    Senator Booker. I am just going to briefly put out two 
questions and maybe you guys can answer them and we can 
conclude.
    The first one will be for Mr. Danies. Obviously, climate 
change is having a disproportionate impact on countries like 
Sao Tome and Principe. What do you believe we could be doing in 
the United States to help them deal with this pressing concern?
    And then the second one for Mr. Vrooman. I have some 
concerns about the violence between Hutus and Tutsis in Burundi 
and how that might destabilize Rwanda.
    If you all could comment on those two, I would appreciate 
it. Thank you.
    Mr. Danies. Thank you, Senator.
    Very briefly, just like in the Amazon, one of the biggest 
sources of mitigation for the climate are protecting forests 
and rainforests. And both Gabon and Sao Tome and Principe are 
very fortunate to have viable environments. And therefore, I 
think it is in our favor to be able to continue to help them 
protect those, to help them manage them in a very smart way so 
that they are constantly providing more protection for the 
environment rather than going through some of the problems 
countries that have been deforested have seen and which have 
exacerbated the problem of climate change.
    You are right that for a country island state like Sao Tome 
and Principe, this is especially important, and therefore, I 
think this is a role that the embassy can play very well in 
helping them develop the right economic techniques to be able 
to protect that environment.
    Mr. Vrooman. Senator, to your question about the relations 
with Burundi, that is obviously a question that the Ambassadors 
of both missions look to. If confirmed, I will work closely 
with our embassy in Bujumbura. I am meeting our Ambassador 
tomorrow as part of my consultations.
    But my understanding is that there are more than 70,000 
refugees from Burundi in Rwanda currently in camps. So that is 
an area certainly of concern that I will continue to monitor 
going forward.
    The East African Community is charged with having dialogue 
and conducting dialogue between the two countries, and that is 
an area that I would continue to monitor as well, if confirmed 
as Ambassador to Rwanda.
    Senator Booker. Mr. Chairman, thank you.
    Senator Flake. Well, thank you both. We appreciate you 
being here and your families as well. I continue to be 
impressed by the sacrifices that they make. These are tough 
posts, a long way from home, and we just appreciate your 
willingness to serve and the sacrifices made by all the 
families.
    For the information of members, the record will remain open 
until the close of business tomorrow--that is December 20th--
including for members to submit questions for the record. We 
would ask the nominees if you could respond as promptly as 
possible to these questions.
    With the thanks of the committee, the hearing stands 
adjourned.
    [Whereupon, at 2:53 p.m., the hearing was adjourned.]



                              ----------                              



              Additional Material Submitted for the Record

      Responses to Additional Questions for the Record Submitted 
              to Joel Danies by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. From very early in my career, I have worked to promote 
human rights, beginning with my repeated visits and engagements in 
Yemen with a small community of Jewish citizens to confirm their 
security and well-being and to report on behalf of the Embassy any 
concerns they might have regarding mistreatment or discrimination by 
the authorities. During this first assignment in Yemen, I also traveled 
with the Ambassador to visit Eritrean refugees in the southern part of 
the country to review their living conditions and coordinate with the 
International Organization for Migration (IOM) on the protection and 
care in the refugee camps located there. I was a key member of the 
staff of the President's Special Representative on Haiti in 1992-93, 
engaged in the successful effort to overturn the illegal military coup 
in Haiti and the return of its exiled president. Our primary focus was 
on the protection of the Haitians fleeing the criminal behavior of the 
junta leaders. We worked closely with IOM, the United Nations Office of 
the High Commissioner for Refugees (OHCR), and the U.S. military to 
establish sites in Jamaica, Turks and Caicos, the Bahamas, and 
Guantanamo for the protection and care of Haitian refugees. I worked 
diligently within the Department and administration to uphold the Leahy 
legislation toward Colombia by ensuring that counternarcotics 
assistance was provided solely to government entities that were not 
accused of being or alleged to be human rights violators. I also spent 
four years in Geneva heading U.S. Government human rights efforts, 
representing our country's human rights values and objectives before 
the U.N. Human Rights Council, and coordinating with the Office of the 
High Commissioner for Human Rights (OHCHR). During that period, in a 
number of instances, I led U.S. Government efforts to hold countries 
identified as human rights offenders accountable for their behavior, 
and I successfully negotiated resolutions that promoted and 
strengthened the values outlined in the Universal Declaration of Human 
Rights.

    Question 2. What are the most pressing human rights issues in Gabon 
and Sao Tome & Principe? What are the most important steps you expect 
to take--if confirmed--to promote human rights and democracy in Gabon 
and Sao Tome & Principe? What do you hope to accomplish through these 
actions?

    Answer. The most important human rights problems for Gabon, as 
noted in State Department's 2016 Human Rights Report, are harsh prison 
conditions, lengthy pretrial detention, and arbitrary arrests. In 
addition, the 2016 presidential election was marred by significant 
irregularities. I will pursue opportunities to continue to engage 
leaders from the Government, opposition parties, and civil society to 
increase respect for human rights and protection for fundamental 
freedoms, and to press Gabon to abide more fully by democratic norms 
and principles.
    In Sao Tome & Principe, also as noted in the State Department's 
2016 Human Rights report, the most pressing human rights issues are 
difficult prison conditions, official corruption, and domestic 
violence. I will work closely with the Sao Tomean Government and civil 
society to identify effective ways to promote transparency and rule of 
law.
    In both countries, establishing open and honest relationships with 
government and civil society will be crucial to countering these 
issues.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Gabon and Sao Tome 
& Principe in advancing human rights, civil society and democracy in 
general?

    Answer. Institutional capacity will likely be the biggest obstacle. 
In addition, civil society remains weak in both countries. I will seek 
opportunities and resources for capacity building. I would note that in 
both countries, severe budgetary constraints will also limit local 
governments' efforts. Shifting institutional culture as well as 
societal norms will likely be challenges.
    In Sao Tome and Principe, we face the added challenge of promoting 
human rights from a distance. We do not have a significant presence on 
the ground and must engage from Libreville. To counter this challenge, 
I will regularly visit and seek opportunities to partner with Sao 
Tomean Government institutions and civil society to support democratic 
development and respect for human rights.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Gabon and Sao Tome & Principe? If confirmed, 
what steps will you take to pro-actively support the Leahy Law and 
similar efforts, and ensure that provisions of U.S. security assistance 
and security cooperation activities reinforce human rights?

    Answer. I am committed to meeting with organizations that are 
concerned with human rights and civil society issues concerning Gabon 
and Sao Tome & Principe. Ensuring that the United States does not 
provide military assistance to foreign military units that violate 
human rights is crucially important. I will ensure that Embassy 
personnel responsible for vetting under the provisions of the Leahy Law 
are familiar with its rules and can implement them fully and 
effectively. I will engage host government interlocutors to remind them 
of the importance the United States places on respect of human rights 
by security services.

    Question 5. Will you and your embassy team actively engage with 
Gabon and Sao Tome & Principe to address cases of key political 
prisoners or persons otherwise unjustly targeted by Gabon and Sao Tome 
& Principe?

    Answer. I will engage with the governments of both countries to 
address cases of political prisoners and arbitrary arrests.

    Question 6. Will you engage with Gabon and Sao Tome & Principe on 
matters of human rights, civil rights and governance as part of your 
bilateral mission?

    Answer. I will engage regularly on these issues with the 
Governments of Gabon and Sao Tome & Principe, opposition parties, and 
NGOs.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign Government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in Gabon and Sao Tome & Principe?

    Answer. Neither I nor any of my immediate family members have any 
financial interests in Gabon or in Sao Tome and Principe.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. The country team is a very important part of any embassy; 
it provides direction, feedback, and guidance to the Chief of Mission 
on all aspects of embassy operations. Seventy percent of Embassy 
Libreville's country team is comprised of officers from a diverse 
background and/or underrepresented group. These talented and highly-
qualified officers work in nearly 50 percent of our positions.
    I will support and mentor all officers at post to ensure they have 
an equal opportunity to advance through the organization to the highest 
levels throughout their career. Additionally, I will make a concerted 
personal effort to reach out and recruit qualified officers who reflect 
the rich diversity of our nation to fill the periodic vacancies at the 
embassy.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy is fostering an environment that is diverse 
and inclusive?

    Answer. I will ensure that embassy personnel are familiar with 
applicable federal laws and State Department policies that protect an 
inclusive workspace. This includes the continued appointment and 
support of EEO officers at post, as well as periodic Embassy-wide town 
halls to discuss issues of diversity, inclusiveness, and bullying for 
both the American and the locally-employed staff. Additionally, I will 
ensure officers at all levels are given the opportunity to serve and 
chair the many important committees within an embassy that shape both 
internal and external operations, to include the various budget, 
security, safety, and employment committees. I will also motivate my 
staff to continue to pursue leadership training opportunities that 
reinforce the values of diversity and inclusiveness.

    Question 12. In what sectors is most official corruption found in 
these countries?

    Answer. Corruption remains a major concern in Gabon. Nepotism, in 
particular, places a burden on the country's financial situation, 
resulting in a large and expensive civil service. There are also 
widespread reports of Gabonese officials' utilizing public funds for 
travel on private jets or openly displaying extravagant spending such 
as for high-end luxury vehicles. Within key economic sectors, the 
timber and petroleum industries are most affected by corrupt behaviors, 
although such corruption is often difficult to prove. Most Sudanese 
also view the judicial system as highly corrupt. Corruption also 
manifests itself in the actions of lower level functionaries, including 
police officers, the customs administration, and public utilities.
    The Gabonese Government launched an anti-corruption campaign called 
``Operation Mamba'' in 2016. To date, only a small number of officials 
or former officials have been prosecuted through this effort. Former 
Hydrocarbons Minister Etienne Dieudonne Ngoubou is incarcerated. Former 
Minister (Economy, Budget, and Infrastructure) and Advisor to the 
President Magloire Ngambia is facing charges of embezzling state funds 
in the amount of $810 million. While the Operation Mamba cases reflect 
positive steps, more needs to be done in order for Gabonese authorities 
to address the nation's corruption challenges.
    Official corruption is much less open in Sao Tome and Principe, but 
it is still cause for concern among embassy interlocutors. In 
particular, there are those who vociferously complain in local media 
that nepotism influences the hiring process for government positions as 
well as the awarding of contracts. Although in the past there have 
generally been weak government accountability and controls, the 
National Assembly recently passed legislation authorizing the referral 
of public corruption cases to the Public Prosecutor's Office for 
investigation. On December 20, the National Assembly directed one of 
its own, Deputy Delfim Neves, to present himself to the Public 
Prosecutor's Office to for questioning regarding an attempt to bribe 
magistrates.

    Question 13. If confirmed, what tools do you have at your disposal 
to help address corruption and what actions will you take as Ambassador 
to advocate for improvement in transparency and good governance with 
relevant stakeholders?

    Answer. If confirmed, I would work closely with the two primary 
anti-corruption groups in Gabon: the Commission to Combat Illicit 
Enrichment (CNLCEI) and the National Financial Investigations Agency 
(ANIF). I would also work with civil society and members of the non-
governmental organization (NGO) community to continue to raise the 
public's awareness about the importance of eliminating corruption at 
all levels and reinforce the important role of civil society in pushing 
for greater transparency and accountability. I would also continue to 
explore opportunities to encourage Gabonese institutions to take 
advantage of U.S. Government technical assistance programs to assist 
with anti-corruption efforts, transparency, and the rule of law. These 
include exchange programs focusing on anti-corruption efforts and 
organizing remote discussions through Digital Video Conference 
technology and expert speaker programs that target anti-corruption.
    While the amount and scope of public corruption in Sao Tome and 
Principe (STP) is relatively small, our active engagement with the 
Government, opposition parties, and NGOs is important to promote 
greater transparency. If confirmed, I intend to visit STP regularly and 
deliver consistent messaging in support of rule of law and the 
principle of meritocracy.

    Question 14. The State Department has ranked Gabon ``Tier 2 
Watchlist'' in its most recent Trafficking in Persons Report. If 
confirmed, what types of U.S. diplomatic efforts and assistance, if 
any, would you pursue to help Gabon better tackle this problem?

    Answer. The State Department and the U.S. Embassy in Libreville 
actively engage with the full range of public and private stakeholders 
to encourage the Gabonese Government to take additional steps to 
address trafficking in persons (TIP). Gabon ratified the Palermo 
protocols in 2010, but has yet to harmonize its domestic legal system. 
In addition, our joint efforts are required to strengthen key 
institutions and address the broad perception that bribery of the 
judiciary effectively eliminates trafficking-related cases. There have 
been no trafficking-related prosecutions in recent years. If confirmed, 
I would work with effective individuals and institutions in Gabon to 
reconcile its penal code with the Palermo protocols, and I would seek 
opportunities to provide direct support through USG technical 
assistance, including training for the judiciary.

    Question 15. In what ways might such efforts be incorporated into 
existing U.S. programs that aim to help strengthen Gabon's security 
sector and the rule of law?

    Answer. The U.S. Embassy has had some success in recent years 
building capacity in individual judges through the International 
Visitor Leadership Program (IVLP). If confirmed, I would work to 
continue to offer this type of experience to members of the judiciary 
we identify as emerging leaders. As the pool of IVLP alumni in the 
judiciary grows, we are hopeful they will form a nucleus around which 
rule of law will grow and ultimately be the norm.

    Question 16. In your view, what are the core U.S. interests in 
Gabon? What changes to U.S. bilateral aid would you advocate, if any?

    Answer. The core U.S. interests in Gabon are long-term political 
stability, sustaining maritime and border security, supporting U.S. 
companies, including those that are heavily invested in the petroleum 
industry, eliminating wildlife and other illicit trafficking, 
protecting the flora and fauna in the Congo Basin, and supporting 
Gabonese peacekeeping efforts. Gabon is also a Cooperative Security 
Location for the Department of Defense, which allows the country to 
facilitate U.S. crisis response, including emergency evacuation of U.S. 
embassies. At present, U.S. bilateral aid for Gabon is limited to 
International Military Education and Training (IMET) programming, 
grants and direct support awarded through the U.S. Fish and Wildlife 
Service, and USAID's Central Africa Regional Program for the 
Environment (CARPE). Gabon has also received security assistance 
funding through the Peacekeeping Operations (PKO) account to fund a 
number of key efforts, including peacekeeping capacity building, 
counter-poaching efforts, maritime security capacity building, and 
military education institution building. Gabon has also received 
funding through the Foreign Military Financing (FMF) fund maritime 
capacity building efforts. In addition to supporting these existing 
efforts, I would advocate in two key areas:
    Agribusiness: Gabon is very interested in attracting businesses 
that transform natural resources, generating added value. If confirmed, 
I would like to look at ways that agencies such as OPIC, USTDA, the 
U.S. Export-Import Bank, and USAID might be able to support U.S. 
companies that are interested in investing in Gabon. There is a 
relatively short window of opportunity to help Gabon develop the 
structures necessary to take advantage of the remaining eight years of 
AGOA.
    Rural Development: With Embassy Libreville's support and advocacy, 
both the Government of Gabon and the Peace Corps have expressed 
interest in re-establishing a Peace Corps program in Gabon, resources 
permitting. If confirmed, I would continue to advocate for the return 
of Peace Corps as I believe there is potential to have a positive 
impact in all six of Peace Corps' project sectors: agriculture, 
community economic development, education, the environment, health, and 
youth in development. If confirmed, I would like to see whether Peace 
Corps could return to Gabon.

    Question 17. Please describe U.S. maritime security cooperation 
efforts in Gabon. Please describe U.S. support for Gabonese 
environmental conservation, and the results of such efforts to date.

    Answer. Maritime Security cooperation is a key element of U.S. 
engagement in Gabon. Gabon is a part of AFRICOM's Line of Effort (LOE) 
Four, which supports and focuses U.S.-based security assistance toward 
maritime security and countering illicit activities in the Gulf of 
Guinea. Gabon has historically received all its maritime security 
cooperation through the U.S. Navy and the U.S. Coast Guard.
    In 2014, the U.S. Secretary of the Navy delivered recommendations 
for a maritime security strategy to President Ali Bongo. Shortly 
thereafter, Gabon established a Sea Security Council, which currently 
advises its president on maritime capacity building. The U.S. Embassy 
works with the Gabonese to identify areas where the United States can 
support the implementation of Gabon's maritime security strategy.
    One of the U.S. Navy programs supporting this strategy is the 
expansion and maintenance of its shore-based sensor surveillance 
system, the Regional Maritime Awareness Capability. The current 
project, funded through State Department assistance, aims to build a 
sensor site at Cap Esterias (north of Libreville), repair and upgrade 
existing systems in Port Gentil, and potentially install a new sensor 
site in Mayumba (southern border between Gabon and the Republic of 
Congo) with existing Africa Maritime Security (AMS) Foreign Military 
Financing (FMF) grants. AMS has also supported the sustainment of naval 
vessels.
    For early 2018, the U.S. Navy is also working with Gabon to host 
OBANGAME EXPRESS 2018, a Gulf of Guinea naval exercise. This will 
consist of Gabon's hosting a Final Planning Event in mid-January 2018, 
followed by the exercise the last two weeks of March 2018. The U.S. 
Navy is also working with Gabon to host a Senior Leader Seminar during 
the exercise, which will draw Chiefs of the Navies from many Gulf of 
Guinea states, as well as international partners and senior U.S. Navy 
leadership to a three-day maritime security seminar.
    The International Military Education and Training (IMET) program 
consistently prioritizes developing the capacity of Gabonese naval 
officers. In FY 2017, Gabon sent two naval officers to further their 
military training at U.S. Navy and Coast Guard training centers. The 
Peacekeeping Operations (PKO)-funded Africa Maritime Security 
Initiative (AMSI) has supported the training of officers in Gabon on 
maritime topics including maintenance, management, and boarding team 
operations. Three commissioned Gabonese naval officers recently 
graduated from the U.S. Naval Academy in Annapolis. The U.S. Embassy is 
working with these commissioned officers to ensure a positive impact on 
the Gabonese Navy and hopes to continue to provide technical to support 
qualified Gabonese candidates.
Environmental Conservation
    In 2018, the U.S. Fish and Wildlife Service (USFWS) will support 
the fifth year of a five-year cooperative agreement developed in 
collaboration with Gabon's National Parks Agency (ANPN). Through this 
agreement, USFWS partners with ANPN to address rapidly escalating 
threats to security, including elephant poaching and trans-boundary 
environmental crime. In addition, USFWS has stationed a Special Agent/
Attache at the Embassy in Libreville to partner with Gabonese 
authorities in the investigation of natural resource crimes. USFWS 
draws from its expertise in wildlife management to assist Gabon as it 
develops a protected area system and capable personnel to run it. USFWS 
also plans to continue support for small grants to non-governmental 
organizations to complement ANPN's activities.
    With USFWS support, ANPN has successfully eliminated elephant 
poaching from the Wonga Wongue Presidential Reserve, whose bull 
elephants were previously heavily poached for their ivory. This 
approach is being replicated in other national parks in Gabon. USFWS 
support has also led to the establishment of a new Marine Protected 
Area (MPA) network via the `Blue Gabon' initiative. In working towards 
an expanded MPA network, ANPN, in collaboration with the Gabonese Navy 
and Gabon's national fisheries agency, succeeded in bringing together 
diverse stakeholders ranging from coastal communities to companies 
involved in offshore oil production. The U.S. Government will also 
assist the Gabonese Armed Forces and ANPN Park Rangers to develop their 
civil-military operations capability to ameliorate a gap in the 
Government's ability to work with the local populace on anti-poaching 
efforts.

    Question 18. Did Sao Tome's MCC Threshold Program achieve its 
stated aims?

    Answer. Sao Tome's MCC Threshold Program was very successful. It 
helped the Government of Sao Tome increase revenue through improved tax 
and customs administration and enforcement, and also helped streamline 
business registration procedures. Based solely on the success of its 
Threshold Program, Sao Tome would usually be considered for a compact, 
but it is considered too small. If confirmed, I would like to explore 
opportunities for including STP in MCC regional programs or MCC 
programs that are designed to target small island nations, such as 
those in the Pacific.

    Question 19. What kinds of U.S. assistance, if any, would you 
advocate for Sao Tome?

    Answer. If confirmed, I would advocate for assistance in 
agriculture and agribusiness development, environmental degradation, 
and rural development. It is worthwhile to note that Peace Corps 
suspended its program in Sao Tome and Principe when it suspended its 
Gabon program in 2005, as the two programs were managed out of 
Libreville. If Peace Corps were to resume operating in Gabon, I would 
advocate for a corresponding return to Sao Tome.

    Question 20. What are the aims and status of U.S. maritime security 
capacity-building efforts in Sao Tome, and the role of the IMET 
program?

    Answer. Nearly all capacity-building occurs in the maritime 
security sector, where the U.S. works closely with the Sao Tomean Coast 
Guard. The United States led a multilateral effort with STP, Portugal, 
Brazil, and the United Nations Office on Drugs and Crime in the 
development of STP's draft maritime security strategy. The strategy was 
approved in December 2017 by the Council of Ministers and awaits final 
approval by the National Assembly, the last remaining step before we 
can continue our assistance in supporting the development of an 
implementation plan.
    The United States conducts security assistance training and annual 
military exercises with STP with the intent to help strengthen its 
maritime security capacity. The STP Coast Guard participates annually 
in the U.S. Navy-sponsored maritime security exercise OBANGAME EXPRESS, 
which Gabon will host in March 2018. STP has historically participated 
in limited fashion since 2011 by contributing some vessels, boarding 
teams, and use of its maritime operations center. Moreover, the U.S. 
Navy evaluates the STP Coast Guard's performance and programs training, 
when available, to assist in improving identified deficiencies.
    In 2007, the United States installed the first shore-based sensor 
system, the Regional Maritime Awareness Capability, on Sao Tome and 
Principe for maritime surveillance in the Gulf of Guinea. In 2010, the 
United States granted a 43-foot Archangel class patrol craft, using 
anti-terrorism funding. Both the sensor systems and vessel have 
suffered from a lack of maintenance due to insufficient funding within 
the Ministry of Defense and the Coast Guard, leaving both in a state of 
disrepair. Small Africa Maritime Security (AMS) Foreign Military 
Financing (FMF) grants have permitted some minimal maintenance. The 
U.S. Navy expects to spend $150,000 in repairs to the shore-based 
sensors systems in February 2018 and, dependent on the availability of 
funding, conduct around $200,000 in repairs to Archangel.
    The International Military Education and Training (IMET) program 
focuses on professionalizing STP's Coast Guard through professional 
military education (PME), Expanded-IMET (E-IMET) focused on human 
rights and rule of law, and limited technical training. Over the past 
three years, the IMET program has enabled the U.S. Embassy in 
Libreville to send three Sao Tomean Coast Guard officers to further 
their professional military education at U.S. Coast Guard and U.S. Navy 
training centers. Currently, the IMET program sponsors a Sao Tomean 
Lieutenant Colonel attending the U.S. Navy Command College in Newport, 
Rhode Island.
    In late 2017, the Portuguese Navy announced that it would base the 
naval patrol craft ``Zaire'' in Sao Tome. The plan is to have two 33-
man crews, one from STP and the other from Portugal, to patrol the 
waters within STP's Exclusive Economic Zone starting in January 2018. 
Over the course of one year, Portugal will phase in STP Coast Guard 
crew members and replace Portuguese sailors. The end state of this 
operation is STP taking complete control of the mission, comprised of 
only STP sailors, by January 2019. To support this endeavor, AFRICOM 
aims to start the process of integrating STP and Portugal into the 
Africa Maritime Law Enforcement Partnership (AMLEP) with the vessel as 
possible means to eventually conduct combined operations in the Gulf of 
Guinea with a U.S. Coast Guard Law Enforcement Detachment (LEDET).



                               __________


      Responses to Additional Questions for the Record Submitted 
             to Peter Vrooman by Senator Benjamin L. Cardin

    Question 1. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What has 
been the impact of your actions?

    Answer. During the course of my Foreign Service career, I have 
drafted or supervised the drafting of numerous Department of State 
Country Reports on Human Rights, including reports on Djibouti, 
Lebanon, Israel, and Ethiopia. When I served as the country desk 
officer for Algeria, I worked with the American Bar Association, which 
conveyed a ``Rule of Law letter'' to the Algerian Government on the 
case of another defense attorney who had been arrested and was later 
acquitted. I developed a strategy with our Embassy in Algiers and 
several international election monitoring organizations for observing 
the 1997 legislative elections, which, while flawed, marked the 
evolution toward more democratic government after years of violent 
conflict.At the United Nations, I worked with other diplomats to call 
for a Special Session of the U.N. General Assembly to commemorate the 
60th anniversary of the liberation of Nazi death camps. This session 
provided an opportunity for Elie Wiesel to address representatives of 
Member States, and its most significant impact was the establishment of 
an annual Holocaust Remembrance Day at the United Nations. In Israel, 
our team supported local NGO efforts to provide humanitarian assistance 
to migrants and trafficking victims. As spokesperson of the U.S. 
Embassy in India, I promoted the rights of the Girl Child and efforts 
to combat gender-based violence. For example, in the wake of several 
horrific rape cases in Delhi, our Embassy nominated an Indian victim as 
an International Woman of Courage.Q

    Question 2. What are the most pressing human rights issues in 
Rwanda? What are the most important steps you expect to take--if 
confirmed--to promote human rights and democracy in Rwanda? What do you 
hope to accomplish through these actions?

    Answer. The State Department's most recent human rights report 
notes that the most important human rights issues in Rwanda are 
government harassment and arrest of political dissidents; restrictions 
on media freedom and civil liberties; and restrictions on and 
harassment of nongovernmental organizations. If confirmed, I would 
continue to consistently engage in a frank dialogue with the Government 
on human rights issues. I would ensure that Embassy staff attend 
relevant trials that are open to the public. I would also look for 
opportunities to sustain our engagement and programming with respect to 
promoting the rule of law, a vibrant civil society, and freedom of 
expression.

    Question 3. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Rwanda in advancing 
human rights, civil society, and democracy in general?

    Answer. Rwanda often replies to criticism of its human rights 
record that it is a sovereign country with a unique context and that 
outside actors should not interfere in its internal affairs, 
particularly after the failure of the international community to 
intervene to prevent the 1994 genocide. Our challenge is convincing the 
Government that efforts to silence critics run counter to Rwanda's 
development goals and constitutionally enshrined rights, and that 
greater respect for freedom of expression and media freedoms are 
crucial to fostering the knowledge-based economy the Government seeks 
to build.

    Question 4. Are you committed to meeting with human rights, civil 
society and other non-governmental organizations in the U.S. and with 
local human rights NGOs in Rwanda? If confirmed, what steps will you 
take to pro-actively support the Leahy Law and similar efforts, and 
ensure that provisions of U.S. security assistance and security 
cooperation activities reinforce human rights?

    Answer. I am committed to meeting with U.S. and local human rights 
and civil society organizations, if confirmed. If confirmed, I will 
also ensure that my staff fully complies with the Leahy Law and similar 
efforts.

    Question 5. Will you and your Embassy team actively engage with 
Rwanda to address cases of key political prisoners or persons otherwise 
unjustly targeted by Rwanda?

    Answer. Yes, my Embassy team and I will actively engage with Rwanda 
on such cases.

    Question 6. Will you engage with Rwanda on matters of human rights, 
civil rights, and governance as part of your bilateral mission?

    Answer. If confirmed, I will actively engage with Rwandan officials 
on matters of human rights, civil rights, and governance. These issues 
are indispensable to our bilateral diplomacy and central to our efforts 
to ensure that Rwanda consolidates the socioeconomic gains it has made 
in the past decades.

    Question 7. Do you commit to bring to the committee's attention 
(and the State Department Inspector General) any change in policy or 
U.S. actions that you suspect may be influenced by any of the 
President's business or financial interests, or the business or 
financial interests of any senior White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 8. Do you commit to inform the committee if you have any 
reason to suspect that a foreign government, head of state, or foreign-
controlled entity is taking any action in order to benefit any of the 
President's business or financial interests, or the interests of senior 
White House staff?

    Answer. I commit to comply with all relevant federal ethics laws, 
regulations, and rules, and to raise concerns that I may have through 
appropriate channels.

    Question 9. Do you or do any members of your immediate family have 
any financial interests in the Rwanda?

    Answer. Neither I nor any members of my immediate family have any 
financial interests in Rwanda.

    Question 10. Research from private industry demonstrates that, when 
managed well, diversity makes business teams better both in terms of 
creativity and in terms of productivity. What will you do to promote, 
mentor and support your staff that come from diverse backgrounds and 
underrepresented groups in the Foreign Service?

    Answer. In 1991, I entered the Foreign Service with two classmates 
who were the first two blind Foreign Service Officers. Their service 
inspired me to promote an inclusive workplace. I subsequently served as 
an EEO Counselor at two large U.S. embassies and this experience has 
greatly enhanced my toolkit for promoting the respect for and 
encouragement of diversity in the workplace. For example, I recommended 
mission-wide training and sensitization regarding sexual harassment in 
the workplace at three embassies. In one instance, I succeeded in 
removing a local guard supervisor who had created a hostile work 
environment for female employees. The removal of this bully not only 
addressed a valid EEO complaint, but also allowed for the development 
of a more tolerant and inclusive workforce environment that benefited 
all employees at the Embassy. My message as a mentor and a leader has 
been to encourage everyone at our missions to know their EEO rights and 
their reporting responsibilities regarding harassment and 
discrimination. If confirmed, I would ensure that all employees take 
required No FEAR Act training and EEO sensitization aimed at advancing 
this objective.

    Question 11. What steps will you take to ensure each of the 
supervisors at the Embassy are fostering an environment that is diverse 
and inclusive?

    Answer. In Addis Ababa, I chaired an interagency Inclusiveness 
Working Group that included supervisors and managers to look for ways 
to promote this value internally within our mission and externally in 
our public diplomacy and programmatic outreach. For example, we looked 
for concrete ways to promote awareness of the challenges faced by 
disabled persons. We awarded community grants to local NGOs and took 
steps to make sure that the Embassy, the Ambassador's residence, and 
our American space in Addis Ababa are accessible to disabled persons. 
We created a Disability Advisor position within our human resources 
section to promote accessibility, accommodation strategies, and more 
effective recruitment policies for our own staff. If confirmed, I would 
look forward to engaging in similar initiatives with our country team 
in Rwanda and will ensure that all Department of State supervisors have 
taken required leadership courses regarding EEO/Diversity and the 
fundamentals of supervision at the Foreign Service Institute, or other 
accredited leadership training institutions.

    Question 12. On December 6, the U.N. Committee Against Torture 
released its concluding observations after a routine review of the 
situation in Rwanda. During the review, committee members raised 
concerns about serious violations--including torture, extrajudicial 
executions, enforced disappearances, and intimidation of journalists, 
human rights defenders and opposition party members. What role should 
the U.S. play in addressing the concerns raised by the U.N. with the 
Rwandan Government?

    Answer. The U.S. Government has repeatedly expressed concerns about 
torture; extrajudicial killings; enforced disappearances; and 
intimidation of journalists, human rights defenders, and opposition 
figures in Rwanda. Our Embassy has also encouraged senior members of 
the Rwandan Government to engage with U.N. bodies and international 
human rights organizations to address credible allegations of human 
rights violations. If confirmed, I will continue to raise these 
concerns with the Rwandan Government. I will also encourage the 
Government of Rwanda to continue to investigate allegations of torture 
and to bring additional perpetrators of torture to justice, as the 
committee against torture highlighted in its second periodic report 
(CAT/C/RWA/CO/2) regarding Rwandan Government efforts to date.

    Question 13. Rwanda is ranked 50th of 176 on Transparency 
International's Corruption Index. In what sectors is most official 
corruption found in Rwanda?

    Answer. Rwanda is ranked among the least corrupt countries in 
Africa, and the government has been proactive in addressing corruption 
when it occurs. While corruption is not prevalent within any specific 
economic sectors, there are occasional cases of misuse of public funds. 
Rwanda's National Public Prosecution Authority routinely prosecutes 
civil servants, police, and other officials for fraud, petty 
corruption, awarding of public tenders illegally, embezzlement, and 
mismanagement of public assets. In 2017, the vice rector of the 
University of Rwanda and the managing directors of the Water and 
Sanitation Agency and the Energy Utility Corporation were arrested on 
corruption charges. Between September 2016 and August 2017, 203 
individuals--mostly local leaders and administrative staff members--
were convicted of embezzlement.

    Question 14. If confirmed, what tools do you have at your disposal 
to help address corruption and what actions will you take as Ambassador 
to advocate for improvement in transparency and good governance with 
relevant Rwandan stakeholders?

    Answer. The Government of Rwanda has stated its commitment to 
eradicate official corruption. Our Embassy is actively engaged in 
advocating for improvements in fiscal transparency with senior Rwandan 
officials and in promoting capacity building for local officials and 
administrative staff to improve good governance and management of 
public resources. If confirmed, I would continue these efforts.

    Question 15. The State Department has ranked Rwanda ``Tier 2 
Watchlist'' on trafficking in persons. If confirmed, what types of U.S. 
diplomatic efforts and assistance, if any, would you pursue to help 
Rwanda better tackle this problem?

    Answer. The United States is supporting Rwanda's efforts to address 
the concerns raised in the Trafficking in Persons (TIP) report through 
multiple initiatives geared to improving inter-government coordination 
on TIP and boosting investigative and prosecutorial capacity. For 
example, in January 2017, USAID awarded a $1.3 million grant to the 
International Organization for Migration (IOM) to assist Rwanda in 
combatting trafficking.
    If confirmed, I would monitor the effectiveness of this new 
program, along with other U.S. Government-funded initiatives to combat 
trafficking in persons and continue to make the issue a priority in our 
diplomatic engagement with the Government of Rwanda.

    Question 16. In what ways might such efforts [to combat human 
trafficking] be incorporated into existing U.S. programs that aim to 
help strengthen Rwanda's security sector and the rule of law?
    Answer. In March 2017, the State Department's Office to Monitor and 
Combat Trafficking in Persons (J/TIP) awarded a targeted technical 
assistance grant to the U.N. Office on Drugs and Crime for 
investigative and prosecutorial training.
    J/TIP has also approved an additional award for FY 2018 to the 
International Organization for Migration to combat TIP, including in 
refugee camps, that complements the existing USAID grant to IOM.
    If confirmed, I would look for synergies between these programs and 
existing police-training programs that the U.S. Government supports, 
such as the International Law Enforcement Academy and police, 
peacekeeping, and capacity-building programs. I would also encourage 
the Government of Rwanda to address recommendations identified in our 
TIP report.

    Question 17. What steps has Rwanda taken, if any, to address 
alleged official involvement in Burundian refugee recruitment into 
armed groups in 2015-2016?

    Answer. In 2016, the Government of Rwanda adopted new guidelines on 
refugee camp management, which explicitly outlawed recruitment and 
trafficking-in-persons in refugee camps and imposed criminal sanctions 
for these actions. There were no credible reports of Rwandan 
authorities' involvement in the recruitment of refugees into armed 
groups from Rwanda's refugee camps in 2017, and Rwanda was removed from 
the Child Soldier Prevention Act list in 2017.

    Question 18. The U.S. has invested heavily in development and 
peacekeeping in Rwanda over the past two decades. What impacts, if any, 
might the administration's proposal to decrease funding for health and 
development programs have on Rwanda, if implemented? What democracy-
promotion programs might be feasible, if any?

    Answer. U.S. assistance in Rwanda has improved basic health 
services, expanded economic opportunities in rural areas, strengthened 
agricultural production and food security, prepared youth to contribute 
to the transitioning economy, and encouraged citizen-responsive 
governance. USAID will continue to find effective ways to leverage 
private sector and local resources to advance these development goals 
and support Rwanda's efforts to reduce its reliance on foreign 
assistance. USAID supports a number of targeted activities to promote 
the rule of law, human rights, civil society, and the media. These 
activities include strengthening local NGO capacity to engage in 
policy-making, improving the ability of the media to provide 
independent and impartial information to objectively inform citizens, 
and skills training for judges to issue accessible and transparent 
decisions.

    Question 19. What lessons can we draw from Rwanda's response to 
criticism and military aid restrictions imposed in reaction to Rwanda's 
support for rebel groups in DRC and Burundi?

    Answer. Rwanda defends fiercely its reputation and actions when 
challenged by international partners and NGOs and is quick to issue 
defensive responses to any evidence or reports linking the Government 
to wrongdoing. However, Rwanda also cares about its international 
reputation, and in some instances has taken corrective steps in the 
past in response to concerns about its actions in the region when met 
with sustained criticism and especially punitive measures that affect 
its access to international aid. Coordinated messaging from the 
international community, including the United States, has been 
important in encouraging Rwanda to play a constructive role in 
supporting peace and stability in the Great Lakes region, including in 
the DRC.
    Question 20. Rwanda is named in the President's Emergency Plan for 
AIDS Relief (PEPFAR) Strategy for Accelerating HIV/AIDS Epidemic 
Control (2017-2020) as one of 13 high-burdened countries prioritized 
for investment during the life of the strategy to achieve the 90-90-90 
targets by 2020, whereby 90 percent of people living with HIV know 
their status, 90 percent of people who know their status are accessing 
treatment and 90 percent of people on treatment are virally suppressed. 
What are the main challenges facing the country in achieving their 90-
90-90 goal?

    Answer. Because Rwanda is in the ``last mile'' to reach the 90-90-
90 goals, finding the remaining HIV-positive individuals is the 
country's greatest challenge. Therefore, the PEPFAR program in Rwanda 
is focusing on finding undiagnosed HIV-positive individuals in specific 
key populations (commercial sex workers, men who have sex with men, 
etc.) who have the highest prevalence rates and getting them onto 
antiretroviral treatment. PEPFAR is also increasing its testing efforts 
in geographic areas that have the highest HIV prevalence rates (i.e. 
the three districts of Kigali) and supporting proven interventions to 
reduce new infections.

    Question 21. If confirmed, what will you do to support Rwanda and 
its communities in achieving that [90-90-90] goal?

    Answer. In addition to increasing efforts to find, test, and treat 
the remaining undiagnosed HIV-positive individuals, it is imperative to 
continue providing support to direct services in order to maintain the 
impressive results Rwanda has already achieved in putting and keeping 
people living with HIV on treatment, which is key for viral 
suppression. If confirmed, I would concentrate my efforts on ensuring 
that the Government of Rwanda continues to foster an environment that 
enables these successes to continue, while strengthening its own 
domestic health investments. As such, I would work closely with senior 
government leaders to support the implementation of PEPFAR activities 
and initiatives to reach the 90-90-90 goal and maintain the U.S. 
taxpayers' investment in a program that has saved tens of thousands of 
lives in Rwanda and millions of lives throughout the African continent.



                               __________



      

=======================================================================



                                APPENDIX


                    Alphabetical Listing of Nominees

                   Considered by the Senate Committee

                    on Foreign Relations During the

                   First Session of the 115th Congress

=======================================================================



                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>
</pre></body></html>
